<html>
<title> - THE FUTURE OF U.S. FARM POLICY: FORMULATION OF THE 2012 FARM BILL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




    THE FUTURE OF U.S. FARM POLICY: FORMULATION OF THE 2012 FARM BILL

=======================================================================

                                HEARINGS

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               ----------                              

                    MARCH 9, 2012, SARANAC LAKE, NY
                     MARCH 23, 2012, GALESBURG, IL
                  MARCH 30, 2012, STATE UNIVERSITY, AR
                     APRIL 20, 2012, DODGE CITY, KS

                               ----------                              

                           Serial No. 112-30

                               ----------                              

                                 Part 1

                               ----------                              






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov











   THE FUTURE OF U.S. FARM POLICY: FORMULATION OF THE 2012 FARM BILL

=======================================================================

                                HEARINGS

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                    MARCH 9, 2012, SARANAC LAKE, NY
                     MARCH 23, 2012, GALESBURG, IL
                  MARCH 30, 2012, STATE UNIVERSITY, AR
                     APRIL 20, 2012, DODGE CITY, KS

                               __________

                           Serial No. 112-30

                               __________

                                 Part 1

                               __________






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-371 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
TIMOTHY V. JOHNSON, Illinois         TIM HOLDEN, Pennsylvania
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              LEONARD L. BOSWELL, Iowa
K. MICHAEL CONAWAY, Texas            JOE BACA, California
JEFF FORTENBERRY, Nebraska           DENNIS A. CARDOZA, California
JEAN SCHMIDT, Ohio                   DAVID SCOTT, Georgia
GLENN THOMPSON, Pennsylvania         HENRY CUELLAR, Texas
THOMAS J. ROONEY, Florida            JIM COSTA, California
MARLIN A. STUTZMAN, Indiana          TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      KURT SCHRADER, Oregon
AUSTIN SCOTT, Georgia                LARRY KISSELL, North Carolina
SCOTT R. TIPTON, Colorado            WILLIAM L. OWENS, New York
STEVE SOUTHERLAND II, Florida        CHELLIE PINGREE, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOE COURTNEY, Connecticut
MARTHA ROBY, Alabama                 PETER WELCH, Vermont
TIM HUELSKAMP, Kansas                MARCIA L. FUDGE, Ohio
SCOTT DesJARLAIS, Tennessee          GREGORIO KILILI CAMACHO SABLAN, 
RENEE L. ELLMERS, North Carolina     Northern Mariana Islands
CHRISTOPHER P. GIBSON, New York      TERRI A. SEWELL, Alabama
RANDY HULTGREN, Illinois             JAMES P. McGOVERN, Massachusetts
VICKY HARTZLER, Missouri
ROBERT T. SCHILLING, Illinois
REID J. RIBBLE, Wisconsin
KRISTI L. NOEM, South Dakota

                                 ______

                           Professional Staff

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                   ii

















                             C O N T E N T S

                              ----------                              
                                                                   Page

                         Friday, March 9, 2012

Gibson, Hon. Christopher P., a Representative in Congress from 
  New York, opening statement....................................     6
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................     1
    Prepared statement...........................................     3
Owens, Hon. William L., a Representative in Congress from New 
  York, opening statement........................................     5
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................     6
Scott, Hon. David, a Representative in Congress from Georgia, 
  opening statement..............................................     4

                               Witnesses

Ooms, Eric, dairy producer; Partner, Adrian Ooms & Sons, Inc., 
  Old Chatham, NY................................................     7
    Prepared statement...........................................     8
Rea, Neal, dairy producer; Chairman of the Board, Agri-Mark Dairy 
  Cooperative, Salem, NY.........................................    10
    Prepared statement...........................................    12
Verratti, Jeremy L., dairy and crop producer, Verratti Farms, 
  LLC, Gasport, NY...............................................    15
    Prepared statement...........................................    17
Ledoux, Michele E., beef producer, Adirondack Beef Company, 
  Croghan, NY....................................................    18
    Prepared statement...........................................    21
Eckhardt, Larry, vegetable, field crop, and beef producer; 
  President, Kinderhook Creek Farm, Inc., Stephentown, NY........    38
    Prepared statement...........................................    41
Osborn, Scott, wine grape producer; President, Fox Run Vineyard, 
  Inc., Penn Yan, NY.............................................    43
    Prepared statement...........................................    45
Child, Ralph, seed potato and leafy greens producer; Owner/
  Operator, Childstock Farms, Inc., Malone, NY...................    46
    Prepared statement...........................................    48
Sullivan, Adam F., apple producer; Orchard Foreman, Sullivan 
  Orchards, Inc., Peru, NY.......................................    51
    Prepared statement...........................................    53

                         Friday, March 23, 2012

Boswell, Hon. Leonard L., a Representative in Congress from Iowa, 
  opening statement..............................................    73
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................    71
    Prepared statement...........................................    72
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................    77
Schilling, Hon. Robert T., a Representative in Congress from 
  Illinois, opening statement....................................    75
    Prepared statement...........................................    76

                               Witnesses

Erickson, David C., corn and soybean producer, Altona, IL........    78
    Prepared statement...........................................    80
Moore, Deborah L., corn, soybean, and beef producer, Roseville, 
  IL.............................................................    81
    Prepared statement...........................................    83
Mages, John, corn and soybean producer, Belgrade, MN.............    85
    Prepared statement...........................................    86
Gerard, Blake, rice, soybean, wheat, and corn producer, McClure, 
  IL.............................................................    87
    Prepared statement...........................................    88
Adams, Craig, corn, soybean, wheat, hay, and beef producer, 
  Leesburg, OH...................................................    94
    Prepared statement...........................................    95
Williams, John, sorghum, corn, wheat, and soybean producer, 
  McLeansboro, IL................................................   108
    Prepared statement...........................................   110
Asay, Gary, pork, corn, and soybean producer, Osco, IL...........   112
    Prepared statement...........................................   113
Davis, Terry, corn and soybean producer, Roseville, IL...........   118
    Prepared statement...........................................   120
Howell, David W., corn, soybean, pumpkin, and tomato producer, 
  Middletown, IN.................................................   122
    Prepared statement...........................................   124
Weber, Jane A., specialty crop producer, Bettendorf, IA..........   125
    Prepared statement...........................................   127

                         Friday, March 30, 2012

Crawford, Hon. Eric A. ``Rick'', a Representative in Congress 
  from Arkansas, opening statement...............................   141
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................   139

                               Witnesses

Brantley, L. Dow, rice, cotton, corn, and soybean producer, 
  Brantley Farming Company, England, AR..........................   142
    Prepared statement...........................................   144
Veach, Randy, cotton, rice, corn, wheat, and soybean producer, 
  Manila, AR.....................................................   148
    Prepared statement...........................................   151
Combs, Paul T., rice, soybean, cotton, corn, and wheat producer; 
  President, Sunrise Land Company, Kennett, MO...................   153
    Prepared statement...........................................   155
Flowers, Jr., Richard Bowen, cotton, corn, soybean, wheat, and 
  rice producer, Clarksdale, MS..................................   159
    Prepared statement...........................................   160
Burch, Tim, cotton and peanut producer, Burch Farms, Newton, GA..   162
    Prepared statement...........................................   164
Hundley, David C., rice, corn, and soybean producer, Jonesboro, 
  AR.............................................................   173
    Prepared statement...........................................   174
Freeze, Thomas Michael ``Mike'', aquaculture producer; Co-Owner, 
  Keo Fish Farm, Keo, AR.........................................   176
    Prepared statement...........................................   178
Stewart, Dan, cow/calf producer, Mountain View, AR...............   184
    Prepared statement...........................................   185
Owen, John E., rice, soybean, corn, and cotton producer, John and 
  Annie Owen Farms, Rayville, LA.................................   186
    Prepared statement...........................................   188
Corcoran, Jr., Walter L., cotton, corn, peanut, soybean, grain 
  sorghum, and cow/calf producer, Eufaula, AL....................   191
    Prepared statement...........................................   193

                         Friday, April 20, 2012

Huelskamp, Hon. Tim, a Representative in Congress from Kansas, 
  opening statement..............................................   205
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................   203

                               Witnesses

Harshberger, Gary, corn, wheat, milo, soybean, and cow/calf 
  producer, Dodge City, KS.......................................   206
    Prepared statement...........................................   208
Miller, Keith, wheat, sorghum, corn, soybean, and cow/calf 
  producer, Great Bend, KS.......................................   210
    Prepared statement...........................................   211
Vaughan, Dee, corn, cotton, sorghum, soybean, and wheat producer, 
  Dumas, TX......................................................   214
    Prepared statement...........................................   215
Neufeld, Scott, wheat, sorghum, canola, alfalfa, and cow/calf 
  producer, Fairview, OK.........................................   220
    Prepared statement...........................................   222
Swanson, Terry, corn, wheat, sorghum, sunflower, and cow/calf 
  producer, Walsh, CO............................................   226
    Prepared statement...........................................   227
Harper, Frank, corn, soybean, wheat, sorghum, and cow/calf 
  producer, Sedgewick, KS........................................   236
    Prepared statement...........................................   238
Hodgson, Kendall, wheat, soybean, corn, sorghum, alfalfa, and 
  cow/calf producer, Little River, KS............................   243
    Prepared statement...........................................   244
Giessel, Thomas ``Tom'' Gerard, wheat, corn, sorghum, soybean, 
  alfalfa, and cow/calf producer, Larned, KS.....................   246
    Prepared statement...........................................   247
Anderson, Woody, cotton and wheat producer, Colorado City, TX....   258
    Prepared statement...........................................   260
Hunnicutt, Zachary, corn, soybean, and popcorn producer, Aurora, 
  NE.............................................................   262
    Prepared statement...........................................   264

                                Appendix
   Compilation of Responses to Farm Bill Feedback Questionnaire, 2012


Ms. Maya.....................       275     Abate,                 275
                                             Christina.
Abbott, Debra................       275     Abersold,              275
                                             Barbara.
Abeyta, Santos...............       275     Abrahamson, Jon        276
                                             B..
Abrams, Beth.................       276     Acker, Bonnie..        276
Acker, Sheila J..............       276     Ackoff, Sophie.        277
Actor-Thomas, Roberta........       277     Acuzzo, Richard        277
Adams, Audrey................       278     Adams, Brenda..        278
Adams, Constance.............       278     Adams, Glory...        279
Adams, Joyce.................       279     Adams, Judith..        279
Adams, Lisa..................       279     Adams, Marina..        280
Adams, Martha................       280     Adams, Nancy...        280
Adams, Shirley...............       281     Adams, Tiffany.        281
Adamsky, Kathryn.............       281     Adell,                 281
                                             Balthasar.
Adels, Jonah.................       281     Adessa, Carolyn        282
Adirondack Council,..........       282     Adkin, John....        283
Adkins, Janet................       283     Adler, Stephen.        283
Agnew, Louis D...............       284     Aguilar, Ann...        284
Aguilar, Isabel..............       285     Ahmad,                 285
                                             Basheerah.
Ahmed, Maimoona..............       285     Ahring, Tracey.        285
Aiken, Debbra................       286     Ainslie, James.        286
Aja-Sigmon, Rev. David.......       287     Albach, Fred...        287
Albarado, Carrie.............       287     Albee, Robert..        287
Alcoba, Jaime................       288     Alexander, Dawn        288
Alexander, Elizabeth.........       288     Alexander,             288
                                             Simone.
Alexandra, Peseri............       288     Alford-Hodges,         288
                                             Suzanne.
Alioto, Michelle.............       289     Allemier, Mary.        289
Allen, Barbara...............       289     Allen,                 289
                                             Christina.
Allen, Diann.................       290     Allen, Jerrold         290
                                             E..
Allen, Jonathan..............       290     Allen, Lynn....        290
Allen, Marie K...............       291     Allen, Matt....        291
Allen, Mitchell..............       291     Allen, Trisha..        291
Allen, Whitney...............       291     Alloway, Dr.           292
                                             John.
Allred, Miriam...............       292     Almeida,               292
                                             Katherine.
 Altemose, Mike...............       292     Altman, Andrew.        292
Altman, Armand...............       292     Altom, Billy...        292
Alvarado, Jose...............       293     Alvarado, Jose         294
                                             D..
Alvarez, Ana.................       294     Alvarez,               294
                                             Margarita.
Alvarez, Veronica............       295     Amdahl, Erv....        295
Ame, Sharilyn................       295     American Jewish        295
                                             World Service,
                                             et al..
Ammirati, Gary...............       297     Amory, James...        297
Amsler, Laurie...............       298     Amyx, September        298
Anderson, Amy................       298     Anderson,              298
                                             Caroline.
Anderson, Carolyn............       299     Anderson,              299
                                             Christopher J..
Anderson, Dae................       299     Anderson,              299
                                             Elizabeth.
Anderson, Eric...............       299     Anderson, Gail.        300
Anderson, Glen...............       300     Anderson, Joy..        301
Anderson, Leonora............       301     Anderson,              301
                                             Marilyn.
Anderson, Mark...............       301     Anderson,              301
                                             Nathanial.
Anderson, Raymond............       302     Anderson,              303
                                             Regina.
Anderson, Robert.............       303     Anderson,              303
                                             Sharon.
Anderson, Shel...............       303     Anderson,              304
                                             Sylvia.
Andis, Corlissa..............       304     Andreas, Darian        304
Andrews, Caroline............       304     Andrews, David.        304
Andrews, Elaine..............       304     Andrews, Yvonne        305
Angel, Jan...................       305     Angell, Donald.        305
Angstadt, Karen..............       305     Angstreich,            306
                                             Natalie.
Anson, Jennifer..............       306     Anthony, Cheryl        307
Antone, Jamie................       307     Appel, Beth....        307
Applegate-Rodeman, Sally.....       307     Arbuckle, Lisa.        307
Arends, Lisa.................       308     Argue, Robert..        308
Arie, Alto...................       308     Arjuna, Shivani        309
Arlt, Andrew.................       309     Arman, Casey...        309
Armijo, Ken..................       310     Armstrong,             310
                                             Katharine.
Armstrong, Robin.............       310     Armstrong,             310
                                             Stanley.
Armstrong, Susan.............       310     Armstrong,             310
                                             Vivienne.
Armstrong, Wanda.............       311     Arnold, Gail...        311
Arnold, Laura................       311     Arns, Matt.....        311
Aronson, Adam................       311     Arpin, Nancy...        312
Arra, Melissa................       312     Artzt, Alice...        312
Arvidson, LTC Mark...........       312     Arwen, Elicia..        312
Jasmin Arzate................       313     John Asadourian        313
Ash, Muareen.................       313     Asher, Evelyn..        313
Ashley, Margaret.............       313     Ashton, Gerrard        314
Ashwood, Janice..............       314     Askew, Michael.        314
Association of Kansas Food          314     Atherlay, Mark.        317
 Banks.
Atkinson, Mary...............       317     Atwal, Gurunam.        317
Aubrey, Frances..............       317     Auerbach,              317
                                             Marisha.
Augello, Darcy...............       318     Aulicino,              318
                                             Richard.
Auman, Rick..................       318     Austin, Carol..        318
Austin, Lesley...............       318     Austin, Richard        318
Austin, Shelly...............       319     Avanti,                319
                                             Annemarie.
Avidor, Roberta..............       319     Ayers, Frank...        319
Ayers, Harold................       319     Ayoob, Carol...        320
Azagoh-Kouadio, Benoit.......       320     B., Tatiana....        320
Babb, Yvonne.................       321     Babin, Michelle        321
Babitch, Lia.................       322     Bach-Mitchell,         322
                                             Bonnie.
Backup, Peggy................       322     Bacon, Crystal.        323
Bacon, David.................       323     Bacon, Pat.....        323
Bacon, Taylor................       323     Bacon, Willard.        323
Baehr, Birke.................       323     Baehr, Patricia        324
Baer, Nancy..................       324     Baginski, Ron..        324
Bagwell, Hayley..............       324     Bahl, Freddah..        324
Bailey, B....................       325     Bailey, Larissa        325
Bailey, Marcia...............       325     Bailey, Melissa        325
Bailey, Tina.................       325     Bailey, Vicki..        325
Bailin, Bobbi................       326     Baird, Alta....        326
Baird, Martha................       326     Baise, Michael.        326
Baker, Anita.................       326     Baker,                 327
                                             Catherine.
Baker, Cynthia...............       327     Baker, Jennifer        327
Baker, Kathleen..............       327     Baker, Keith...        327
Baker, Melanie...............       327     Baker, Nancy...        328
Baker, Patricia..............       328     Baker Ingham,          328
                                             Rosalyn.
Baker-Trinity, Jennifer......       328     Bakhsh, Jeri...        328
Bakke, Susan.................       328     Balduff, Nora;         328
                                             on behalf of
                                             Lisa Hamler-
                                             Fugitt.
Baldwin, Mary................       331     Ballard, Bessie        331
Ballentine, Eusebius.........       331     Bandfield, Anna        332
Banham, Betty................       332     Banister, Gene.        332
Banks, Brian.................       332     Bannerman,             333
                                             Carter.
Bannion, Lynnet..............       333     Bansfield,             333
                                             Matthew.
Banta, Margaret G............       334     Barach, Daniel.        334
Barbara, Marsh...............       334     Barber, Kyle...        334
Barbero, Kiley...............       334     Bardo, Jeannine        334
Barile, Genevieve............       335     Barker, Cate...        335
Barker, Dwinna...............       335     Barksdale,             335
                                             Timothy R..
Barnett, Claire..............       336     Barnett, Tracy.        336
Barney, Tom..................       336     Barr, Debbie...        336
Barr, Roger..................       336     Barre, Lisha...        336
Barrio, Carlos...............       337     Barry, Barbara.        337
Barry, Kathryn...............       337     Barta, Kenneth.        337
Bartell, Bob.................       337     Bartell, Lee...        337
Bartels, Richard.............       338     Barton, Kathy..        338
Baruch, Duncan...............       338     Baruth, Alma...        338
Basche, Andrea...............       338     Basden, Stuart.        338
Basler, Jane.................       339     Bason, Carol...        339
Bastone, Virginia............       339     Batchelor,             339
                                             Annette.
Bates, Diane.................       339     Battreal,              340
                                             Jackie.
Bauer, Berenice..............       340     Bauer, Chante..        340
Bauer, Katya.................       340     Bauer, Leslie..        340
Bauer, Rachel................       341     Baum, Helen C..        341
Bauman, Gail.................       341     Baumann, Joseph        341
Baumgartner, Susan...........       342     Baumstein, Jenn        342
Baxter, Adrienne Moore.......       342     Baxter, Jessica        342
Bayes, Sandra................       343     Beach, Laura...        343
Beane, David.................       343     Beattie, George        343
Beaubien, Kathleen...........       343     Beaubier,              343
                                             Gretchen.
Beaudreau, Mallory...........       344     Beaulieu, Kathy        344
Beazlie, Janet...............       344     Beck, Daniel...        345
Beck, Marylin................       345     Becker, Diane..        345
Becker, Elaine...............       345     Beckman,               345
                                             Elizabeth.
Bednar, Deanne...............       345     Bedwell, Barry.        346
Bee, Dianne..................       349     Beebee, Kara...        349
Beers, Judy & Doug...........       349     Beetz, Alice...        349
Beg, Linda...................       349     Behrend, Bill..        350
Behrens, Carla...............       350     Behrens, Kate..        350
Beirise, Peggy...............       350     Belanger,              350
                                             Michelle.
Belgum-Blad, Daniel..........       351     Bell, Judith...        352
Bellini, Cynthia.............       353     Belseth,               353
                                             Stephanie.
Belveal, Barrett.............       353     Bembenek, Anne.        353
Ben-David, Roni..............       356     Bender, Emily..        357
Bender, Nancy................       357     Bendrah, Oebm..        357
Benedict, Crista.............       357     Benner, Al.....        358
Bennett, Allisa..............       358     Bennett,               358
                                             Matthew.
Bennett, Stacey..............       358     Bennett,               358
                                             Virginia.
Benoit, Peyton...............       359     Benson, Erle...        359
Benson, Gaynell..............       359     Benson-Merron,         359
                                             Josh.
Bent, Charles................       359     Bentley, Mary..        360
Berbatov, Dimitar............       360     Berd, Linda....        360
Bereczki, Patricia...........       360     Beresniewicz,          360
                                             Alex.
Berg, Abigail................       361     Berg, Pamela...        361
Berg, Paula..................       361     Berg, Peter....        361
Berger, By...................       361     Berger,                362
                                             Christine.
Berger, Janna................       362     Bergeron,              362
                                             Janice.
Bergman, Audra...............       362     Bergman,               362
                                             Deborah.
Berkowitz, Henry.............       363     Berlepsch,             363
                                             Janice.
Berman, Marcia...............       363     Berman, Susan..        363
Bernhardt, Hannah K..........       363     Bernson, Janet.        364
Bernstein, Simon.............       364     Berrt, Sharon..        364
Berry, Amanda................       364     Berry, Ana.....        364
Berry, Ben...................       365     Berry,                 365
                                             Catherine.
Berry, Michael...............       365     Berryhill, J.          365
                                             Ellen.
Best, Bill...................       365     Best, Cheryl...        366
Best, Vicki..................       366     Bethel, Linda..        366
Bethel, Skye Lindanne........       366     Beville, Ramona        366
Bianco, Sally................       367     Bias, Ronnie...        367
Bicking, Andy................       367     Bidstrup,              369
                                             Elaine.
Biedermann, Laurel...........       369     Biedron, Lauren        369
Bienvenu, Wendy..............       370     Biergiel, Jody.        370
Bierko, Elizabeth............       370     Bierle, Kory...        370
Bierma, Daniel...............       370     Biernbaum, John        371
Bigler, John.................       371     Bigman, Jeff...        371
Bilger, Mike.................       371     Biliske,               373
                                             Elizabeth.
Billbrough, Kelly............       373     Billings,              373
                                             Lauren.
Bingham, Charles.............       373     Bingham, John..        374
Birch, Harold................       374     Birdwell,              374
                                             Walter.
Bischoff, Jason..............       374     Bishop, Melissa        375
Bishop, Scott................       375     Black, Janet...        375
Black, Laurie................       375     Black, Paul....        375
Black, Sylvia................       375     Blackburn,             376
                                             Taneeka.
Blackowiak, Alloise..........       376     Blake, Carolyn.        376
Blakemore, Sally.............       376     Blanc, Kathleen        377
Blanchard, Lydia.............       377     Blank, Kathleen        377
Blanning, Nancy..............       377     Blau, Richard &        377
                                             Valarie.
Blaustein, Philip............       378     Blaustein-             378
                                             Rejto, Daniel.
Blauw, Donna.................       379     Blevins, Brenda        379
Blindow, Melissa.............       379     Bliss, Charles         380
                                             D..
Blitzstein, Lear.............       380     Blomquist,             380
                                             Laurel.
Blood, Larry.................       380     Bloom, Cheryl..        380
Bloom, William...............       381     Blovits,               381
                                             Jeffrey.
Blow, Elizabeth..............       381     Blumer, Jared..        381
Blyweiss, Megan..............       382     Bneolken, Mark.        382
Boatner, Natalie.............       382     Boaz-Shelley,          382
                                             Sarah.
Bobick, Roxanne..............       382     Bobo, Clare....        383
Bochantin, Leona.............       383     Bodde, Mary....        383
Boe, Catherine...............       383     Boeke, Diana...        383
Boettcher, Robert............       384     Bohr Jacob,            384
                                             Jill.
Boles, Samuel................       384     Bolognani,             384
                                             Christy.
Bolz, Mary...................       384     Bona, Victoria.        385
Bond, Elizabeth..............       385     Bond, S........        385
Bonilla, Michael.............       385     Bonini, Allen..        386
Bonk, Angela.................       386     Bonney, Patty..        386
Bonsignore, Andrea...........       386     Boone, Barbara.        386
Booth, Malcolm...............       386     Boothman-              387
                                             Shepard,
                                             Nicole.
Booz, Martha.................       387     Bordagaray,            387
                                             Margaret.
Border, Nathan...............       387     Bordin, Claudia        388
Boreyko, Andrew..............       388     Borgerding, Joe        388
Borgerding, Joyce............       388     Borkton,               388
                                             Raymond.
Borrell, Geraldine...........       388     Bosch, Michael         389
                                             Angelo.
Bosch, Pamela................       389     Bosschieter, H.        389
                                             Adam.
Bostian, Heather.............       389     Botticello,            389
                                             Luke.
Boucher, Victoria............       390     Bouillon,              390
                                             Dominique.
Boulay, Katherine............       390     Bourdon, Paul..        390
Bova, Steve and Cynthia......       391     Bowen, Andrea..        391
Bowen, Laura.................       391     Bowers, Kathryn        391
Bowler, Sarah................       392     Bowman, Andrew.        392
Bowman, Cecilia..............       392     Bowron, Alice..        393
Boyajian, Polly..............       393     Boyce, Nancy...        393
Boyer, Allen.................       393     Boylan,                393
                                             Elizabeth.
Boyle, Stephen...............       393     Boynton, Alanna        394
Braathen, Kent...............       394     Bracken-Hodge,         394
                                             Denise.
Bradbeer, Wilma..............       394     Bradeen, Jaska.        395
Braden, Les..................       395     Braden, Lynne..        395
Bradford, Kathryn............       396     Bradshaw,              396
                                             Eileen.
Brady, Susan.................       396     Brahmbhatt,            396
                                             Yasmin.
Brain, Amy...................       396     Brainerd, Tim..        396
Brake, Angie.................       397     Braley, Doris..        397
Brandariz, Anita.............       397     Brands, Carissa        397
Brandt, Emma.................       397     Brandt,                398
                                             Kimberly.
Brandt, Nancy................       398     Brannigan,             398
                                             Jeanne.
Brannin, Mike................       398     Bransford, Tami        398
Brantley, Lynn...............       399     Bratton,               399
                                             Katherine.
Braun, Joan..................       399     Braun, K.......        399
Braun, Stephan...............       400     Brauner, Jim...        400
Braun-Greiner, Kolya.........       400     Braverman,             400
                                             Jennifer.
Brazell, Denise..............       400     Brazil, Allison        400
Breeden, Robert..............       401     Brees, April...        401
Breneman, Nadine.............       401     Brennan, Don...        401
Brenner, Rick................       401     Brennick,              402
                                             Judith.
Bresnan, L...................       402     Bressie,               402
                                             Jeannine.
Bressler, Alexis.............       402     Breton, Nina...        403
Brewster, Marcie.............       403     Briand, Roger..        403
Brians, Ella.................       403     Brietzke,              403
                                             Adrienne.
Brigham, Cathy...............       404     Brigham, Daniel        404
Brill, Gail..................       404     Brines, Shannon        407
Brinkman, Kathi..............       407     Brinkmeier,            407
                                             Gail.
Broadhead, Susan.............       408     Brodersen,             408
                                             Bonnie.
Broerman, Kimberly...........       408     Bronkhorst,            409
                                             Dianne.
Brooke, Indee................       409     Brooks, Robert.        409
Brooks, Serena...............       410     Brooks, T.J....        410
Broome, Claire...............       410     Brouillet,             410
                                             Louis.
Broussard, James R...........       410     Browdy, Lisa...        411
Brower, Ryan.................       411     Brown, Angela..        411
Brown, Bonnie................       411     Brown, Cameron.        411
Brown, Carl..................       412     Brown, Carol...        412
Brown, Cynthia M.............       412     Brown, Gary....        413
Brown, Heather...............       413     Brown, Inga....        413
Brown, Jami..................       414     Brown, Jennifer        414
Brown, Kimberly..............       414     Brown, Nicole..        414
Brown, Roderick..............       414     Brown, Sheila..        414
Brown, Theresa...............       415     Brown, Victoria        415
Browne, R.J..................       415     Browne, Timothy        415
Browning, Brenda.............       415     Brown-Patrick,         416
                                             Lori.
Bruinsma, Patricia...........       416     Bruns,                 416
                                             Christina.
Bruynseels, Eric.............       417     Bruynseels, Leo        417
Bruynseels, Louise...........       417     Bryan, Alex....        417
Bryan, Marjory...............       418     Bryan, MaryAnn.        418
Bryant, Brit.................       418     Bryant, Ellen..        418
Bryant, Emily................       418     Bryant, Russell        419
Bryen, Bedzaida..............       419     Bryenton, Helen        419
Buchanan, Betty..............       419     Buchanan, Wade.        420
Buck, Cathy..................       420     Buck, Sherman..        420
Buckley, Alexis..............       421     Buckner, Paula.        421
Buczynski, Beth..............       421     Budde, Susan...        422
Buford, Jennifer.............       422     Buhn, Elise....        422
Buhr, Rita...................       422     Bulger, Michael        423
Bulleit, Jennifer............       423     Bullock,               423
                                             Lindsay.
Bultedaob, Jane..............       423     Bulten, Penny..        423
Bunker, Suzanne..............       423     Bunkers, Laurel        424
Burbridge, Jim...............       424     Burd, Melinda..        424
Burden, Henry................       424     Burden, Susan..        424
Burger, Janis................       424     Burgess, Ben...        425
Burgess, Sharron.............       425     Burkard, Peter.        425
Burke, Frances...............       425     Burke, Moira...        426
Burley, David................       426     Burnett, Retha.        426
Burns, Deborah...............       426     Burns, Edward..        427
Burns, George................       427     Burns, Jeff....        427
Burns, Scott.................       427     Buron, Sr.,            428
                                             IHHP, Michael
                                             R..
Burrell, Kelly...............       428     Burrow, Kathy..        428
Burrows, Mary................       428     Burstein, Alan.        429
Burstein, Mimi...............       429     Burton, Gerri..        429
Burton, Kate.................       429     Burwinkel, Mark        429
Bush, Jeff...................       430     Bush, Sarah....        430
Bushley, Bryan...............       430     Bushnell,              430
                                             Martha W.D..
Busler, Niles................       430     Buswell, Justin        431
Butler, Alison...............       431     Butler,                431
                                             Christin.
Butler, Elizabeth............       431     Butler, Lisa...        431
Butler, Rebekah..............       431     Butler, Shelby.        432
Butterfield, Lisa............       432     Buzzard, Lisa..        432
Byers, Robert................       432     Byrne, Dorothy.        432
Byrne, Mary Jane.............       433     C., M..........        433
C., R........................       433     Cabanaw, Judith        433
Cadorette, Sarah.............       433     Cady, Deborah..        433
Cafferata, Elisa.............       434     Caldwell, Ariel        434
Caldwell, Constance..........       434     Callaway, James        434
Callow, Tracy................       434     Calloway,              435
                                             Roderick.
Caltvedt, Lester.............       435     Calvani,               435
                                             Dorothy.
Camera, Christopher..........       435     Cameron, Annika        436
Cameron, Christopher.........       436     Cameron, Karen.        436
Cameron, Sally...............       436     Cammon, C.H....        436
Camp, David..................       437     Campbell,              437
                                             Benita.
Campbell, C. Martin..........       437     Campbell, Holly        438
Campbell, Sue................       438     Campbell, Susan        438
Camper, Cleraine.............       439     Canright, Mark.        439
Canter, Margaret.............       439     Cantor-Navas,          440
                                             Judy.
Cantwell, Pat................       440     Caplan, Elise..        440
Caponi, Nancy................       440     Capriotti-May,         440
                                             Carole.
Carden, Noel.................       440     Cardenas, Katie        441
Cardenas, Melina.............       441     Cardwell, Tonya        441
Carey, Anne..................       441     Carey, Doris...        442
Carlat, Theodore.............       442     Carlile, Andrew        442
Carlson, Drew................       442     Carlson, Gwenna        442
Carlson, Stacey..............       443     Carnahan,              443
                                             Florence.
Carney, Starr................       443     Carolan,               443
                                             Barbara.
Carolus, Kenneth.............       443     Caron, Dr.             444
                                             Lorraine.
Carosella, Deborah...........       444     Carosella, John        444
Carpenter, Amy...............       445     Carpenter, Sue.        445
Carr, Carol..................       445     Carr, Irene....        446
Carr, Sarah..................       446     Carrier,               446
                                             Cynthia.
Carrillo, Shekinah...........       446     Carroll, Linda.        447
Carroll, Mike................       447     Carroll, Scott.        447
Carroll, Susan...............       447     Carta, Andrea..        447
Carter, Beth.................       447     Carter, Kathy..        448
Carter, Marjorie.............       448     Cartwright,            448
                                             Marion.
Caruso, Beth.................       448     Casale, Kate...        449
Casper, Kim..................       450     Cassels, Jen...        450
Casteel, Tammy...............       450     Castellini,            450
                                             John.
Castillo, Julie..............       450     Castle, K.A....        450
Castleforte, Brian...........       451     Castner,               451
                                             Elizabeth.
Castro, Laura................       451     Catalina,              452
                                             Morgan.
Catalino, Anthony............       452     Catrambone,            452
                                             Elizabeth.
Caudill, Richard.............       452     Causey, Mark...        452
Cavender, Lisa...............       452     Caya, Toni.....        453
Cecena, Rebecca..............       453     Cecil, Emily...        453
Cederlind, Amy...............       453     Cenatiempo,            454
                                             Mona.
Center for Rural Affairs.....       454     Cerino, Noreen.        490
Cernie, Sally................       490     Chaisson,              490
                                             Barbara.
Chamberlain, Beverly L.......       490     Chamberlain,           491
                                             Donna.
Chamberlin, Erika............       491     Chambers, Dave.        491
Champagne, MarshaLee.........       492     Chang, Claire..        492
Chang, D.....................       492     Chang, Patricia        492
Chang-Zahn, Lizettea.........       492     Chapman, John..        493
Chapman-Renaud, Heidi........       494     Chappell, Sally        494
Charis, Barbara..............       494     Charnet, Tavia.        494
Chasan, Mark.................       495     Chasin, Barbara        495
Chatham, Matthew.............       495     Chattelle,             495
                                             Eugene.
Chauncey, Bonnie.............       496     Checca, Tim....        496
Chen, Rhonda.................       496     Chenette, Peter        496
Cheng, Tim...................       496     Cherry, Philip.        496
Chichester, Carol............       497
------------------------------------------------------------------------
Chico Country Day School Students:  Cardin, Troy...............       497       Hopson,              497
                                               Morgen.
  Hyder, Emily...............       497       Lane, Molly..        497
  Lantz, Lucas...............       498       Murray, Regan        498
  Nichols, Mikayla...........       498       Polosky, Ty..        498
  Schroth, Erika.............       498       Scott,               498
                                               Richard.
  Sunderman, Maddie..........       498       Winter,              499
                                               Sophia.
------------------------------------------------------------------------
Child, Robert................       499     Childs, Nat....        499
Chin, Caroline...............       499     Chiotis,               499
                                             Melissa.
Chirinos, William............       499     Choi, Etsuyo...        500
Chord, Melody................       500     Chorush, Evelyn        500
Christensen, Karen...........       500     Christensen,           500
                                             Margaret.
Christian Parks, Andrea......       501     Christopher,           501
                                             David.
Chun, Cynthia................       501     Church, Janet..        501
Church, Janice...............       501     Church, Rebecca        502
Churchill, Joe...............       502     Chval, Jessica.        502
Cipullo, Colette.............       503     Cirlone, Jane..        503
Clancy, Bonnie...............       503     Clark,                 503
                                             Bernadette.
Clark, Catherine.............       503     Clark, David...        503
Clark, Kevin.................       504     Clark, Maxine..        504
Clark, Pamela................       504     Clark, Sheri...        504
Clark, Thomas................       504     Clark, Tom.....        504
Clarke, David................       504     Clarke, Jen....        505
Clarke, Marcia...............       505     Clark-Kahn,            505
                                             Lisa.
Clary, Katelyn...............       505     Clary, Wanda...        505
Claus, Grace.................       506     Claus, Julia           506
                                             Ruth.
Clausen, Suzan...............       506     Clay, Gretchen.        507
Clay, Laura..................       507     Clement,               507
                                             Stephenie.
Clement, Valerie.............       507     Clement, Wade..        507
Clements, Charles............       508     Clemons, Teddy.        508
Climer, Donna................       508     Clough, Allison        509
Clough, Carter...............       509     Clowers, Amy...        509
Cloyed, Connie...............       509     Cobb, Dianne...        510
Cobine, Andrew...............       510     Cochran, Brenda        510
Cochran, Dasha...............       512     Cochran, Joyce.        512
Cochrane, Meg................       513     Cockerha, Joyce        513
                                             Marie.
Cockrell, Connie.............       513     Coffman, R. Ray        513
Cofrin-Shaw, Bryna...........       513     Cohen, Elana...        514
Cohen, Howard................       514     Cohen, Louisa..        514
Coil, Meghan.................       514     Colakovic,             514
                                             Dragan.
Colaprete, Miles.............       515     Colberg, Lesley        515
Colburn, Kendra..............       515     Cole, Debbie...        515
Coleman, Frank...............       516     Coleman, Laura.        516
Coleman, Maryalice...........       516     Coleman, Win...        516
Collar, Diane................       517     Collett, Monica        517
Colling, Sara................       518     Collins, Ann...        518
Collins, Kristi..............       518     Collins, Linda.        518
Collins, Preston.............       518     Collner, J.D...        518
Collomb, Janie...............       519     Colson, Richard        519
                                             E..
Colwell, Rev. Pat............       519     Comanar, Ann...        519
Combes, Maureen..............       519     Comfort, Mary          520
                                             (ID).
Comfort, Mary (MI)...........       520     Commerford,            520
                                             John.
Como, Samantha...............       520     Compston,              520
                                             Michael.
Conine, Dan..................       521     Conklin, Paul..        521
Conklin, Susan...............       521     Conley, Gail...        522
Connaughton, Hilary..........       522     Connell, Casey.        522
Conrardy, Joanna.............       522     Conroy, Peggy..        522
Constantine, Paul............       523     Constantino-           523
                                             Martin, Patti.
Contestabile, Gabriella......       523     Contreras, Emma        523
Cook, Christopher............       523     Cook, Don......        523
Cook, LTC Lenny..............       524     Cook, Margaret.        524
Cook, Michael................       524     Cooke, John....        525
Cooke, Katherine.............       525     Cooley, Monica.        525
Coolidge, Anita..............       525     Cooper, Barbara        525
Cooper, Caroline.............       525     Cooper, Deanne.        526
Cooper, Diane................       526     Cooper, John...        526
Cooper, Nancy................       526     Cooper, Orion..        527
Coram, Jessica...............       527     Coram, Shannon.        527
Corbett, Mary Lou............       527     Corbin, Linda..        528
Corcoran, Mary...............       528     Cordell, Ruth..        528
Corder-Agnew, Lonney.........       528     Cordova, Floyd.        528
Cordray, Janie...............       528     Cormier, Rick..        529
Cornell, Linda...............       529     Cornell, Sandy.        529
Cornia, Gina.................       529     Corrado, Susan.        529
Corzine, Nicole..............       529     Cosenza, Jules.        530
Cosgrave, Brona..............       530     Coshow, Jr.,           530
                                             Charles.
Cosimano, Pat................       530     Cost, Anita....        530
Costa, Demelza...............       530     Costanzo, Chris        531
Costello, Shawndeya..........       531     Cotter, Tish...        531
Cottle, Lawrence.............       531     Cotton, Andrew.        531
Cotton, Nancy................       532     Couche, Stephen        532
Coulon, Christian............       532     Council, Nina..        532
Courter, George..............       532     Cowen, Dave....        533
Cowles, Ph.D., Ann...........       533     Cowling, Janet.        533
Cox, Leslie..................       533     Cox, Linda.....        534
Cox, Maury...................       534     Coy, D. Sid....        535
Cpordas, Lowell..............       535     Craft, Delight.        535
Craft, Helen.................       535     Cragnolin,             535
                                             Janice.
Craig, Geraldene.............       536     Craig, Jan.....        536
Craig, Jason.................       536     Craig, Jean....        537
Craig, Karl..................       537     Craig, Kathy...        537
Craig, Margaret..............       537     Crail, Kimberly        537
Crain, Janet.................       537     Cramer, Dana...        538
Crandall, Lynn...............       538     Crandall, Neal.        538
Cravens, Joshua..............       538     Crawford               538
                                             O'Brien, Jana.
Creasy, Rosalind.............       539     Crew, Tsandi...        539
Crider, Rhonda...............       539     Crisco, Judy...        539
Crock, Steven................       539     Crocker, Joanna        539
Croft, Stan..................       540     Cronin, Terese.        540
Crosby, James................       540     Cross, Lynn....        540
Crouch, Sondra...............       540     Crowley, Dan...        541
Crump, Erin..................       541     Crump, Ruth....        541
Crusha, Connie...............       541     Crutchfield,           541
                                             Christine.
Cruz, Johnny.................       542     Crymes, Lili...        542
Csencsits, Brenda............       542     Cu, Helen......        542
Cuenod, Piliana..............       542     Cuffman, Nancy.        542
Cullipher, Annette...........       543     Cullum, Vernon.        543
Culver, Molly................       543     Cummings, Brian        544
Cummings, Nancy..............       544     Cummings,              544
                                             Thomas.
Cunningham, Carolyn..........       544     Cunningham,            544
                                             Gary.
Cunningham, James............       544     Cunningham,            545
                                             Paul.
Cunningham, Sarah............       545     Cupp, Jerry....        545
Curley, R.N., B.S.N., Darcie.       545     Curlin, Beth...        546
Currier, Constance...........       546     Curry, Harvey..        546
Curry, Kathy.................       546     Curry, Lori....        547
Cushing, Margaret............       547     Cushman, Robert        547
Cutter, Justin...............       547     Cutter, Karin..        547
Cuviello, Joe................       547     Cyr, Tim.......        548
d'Carrone, Louise............       548     D'Auria,               548
                                             Richard.
Daane, Tere..................       548     Dagg, Sarah....        548
Daigle, Abbie................       548     Dailey, Jim....        549
Dale, Barbara and Jim........       549     Dalenberg,             549
                                             Kathryn.
Dally, Leta..................       549     Dalmeida,              549
                                             Cathleen.
Dalton, Lynn.................       550     Daly, Judith...        550
Damian, Kevin................       550     Damman, Lauren.        550
Dancer Schwartz, Kat.........       550     Daniels,               551
                                             Jessica.
Daniels, M.A.................       551     Danielson, Amy.        551
Danielson, Teri..............       551     Dankerlin, L.          552
                                             Renee.
Danneman, Deb................       552     Dappert, Janis.        552
Darnall, Linda...............       552     Darner-Redburn,        552
                                             Debra.
Darrow, Susan................       553     Das, Ranjna....        553
Dashielle, Alegra............       553     Davenport,             553
                                             Riley.
Davidow, Soni................       554     Davidson,              554
                                             Kristina.
Davidson, Sheilah............       554     Davila, Manny..        555
Davis, Adrianne..............       555     Davis, Alice...        555
Davis, Carolyn...............       556     Davis, D.J.....        556
Davis, Diana Verne...........       556     Davis, Pastor          556
                                             Dick.
Davis, Karen K...............       556     Davis, Kathy...        557
Davis, Katrina...............       557     Davis, Liora...        557
Davis, Marilyn...............       557     Davis, Mary....        557
Davis, Nancy.................       557     Davis, Patricia        557
Davis, Rian..................       558     Davis, S.K.....        558
Davis, Terry.................       558     Davis, Ph.D.,          558
                                             Ronald G..
Davol, Catherine.............       558     Davol, Sarah...        558
Dawan-Newborn, Daaiyah.......       558     Dawkins, Hazel.        559
Dawley, Nancy................       559     Dawn, Shelton..        559
Dawson, Lorenzo..............       559     Day, Hannah....        559
Day, Karen...................       560     Dayvie, Liz....        560
Dazey, William...............       560     de Cuba,               560
                                             Natalia.
de Greve, Beatrix............       561     De Korne, Haley        561
de Lorenzo, Carolyn..........       561     De Nicola,             561
                                             Franco.
De Sa, Elizabeth.............       562     De Wys,                562
                                             Margaret.
Deacon, Linda................       562     Dean, Jeff.....        562
Dean, Joanne.................       562     Dearborn,              562
                                             Jeffrey.
DeBoer, Elisa................       563     DeCabooter,            563
                                             Maria.
DeCastro, Diana..............       563     DeDieu, Valda..        563
Deeds, Darla.................       564     Deems, Elanora.        564
Deen, Kara...................       564     DeFelice,              564
                                             Angela.
DeFilippo, Carly.............       565     Deif, Nadine...        565
Del Bosque, Joe..............       565     Del Grosso,            566
                                             Michael.
DeLamatre, Isaac.............       566     Delaney,               566
                                             Maureen.
Delar, Valerie...............       566     Delgadillo,            566
                                             Steve.
Delgado, Dru Ann.............       567     Delgado, Jr.,          567
                                             Victor.
Dell, E......................       567     DeLong, Kenneth        567
Delorey, Kathleen............       567     deLorge, Ann...        568
DelRosso, Carol..............       568     DeMaggio, Julie        568
Demetri, Darlene.............       568     Demi, Carol;           569
                                             Laura Lupovitz.
Deming, Linda................       569     DeMo, Charle...        569
Demuria, Gary................       569     Denenberg,             570
                                             Harold.
Dengel, William..............       570     Denham, Isabel.        570
Denis, Sarah.................       570     Denman, Sara...        570
Dennis, Marianne.............       570     Dennison, Jane.        570
Depew, Jerry.................       571     Depner, Stacie.        571
Derksen, Gloria..............       571     Deroko, Renee..        571
DeRolf, Kerstin..............       572     Deshotels,             572
                                             James.
Dessler, David...............       572     DeSutter, Randy        572
Detmers, Peggy...............       573     Dettlinger,            573
                                             Malisa.
Deutsch, Lauren..............       573     Devine, Carole.        573
Dezendorf, Andrea............       573     Di Tosti,              574
                                             Carole.
Diaz, Barbara................       574     Diaz, Daily....        574
Diaz, Margarita..............       574     Dibbell,               575
                                             Kenneth.
Dickerson, Babette...........       586     Dickerson, Sara        586
Dickinson, Nancy.............       586     Dickmann, Maria        587
Didrichsen, Susan............       587     Diehl, Cathy M.        587
DiGiacomo, Mark..............       587     Dillard, Jerry.        587
Dilley, Christopher..........       588     Dillon,                589
                                             Elizabeth.
Dillon, Sherry...............       589     Dilworth,              589
                                             Alexandra.
DiNardo, Judith..............       590     DiPuma, Susan..        590
Dirnbach, Boris..............       590     Disney, Ann and        590
                                             Walt.
DiVicino, Roseann............       591     Dixon, Meghan..        591
Djernes, Tami................       591     Dlugonski,             592
                                             Melba.
Dobbs, Michael...............       592     Dobkin, Joan...        592
Dobrow, Angel................       592     Dobsevage, Tina        593
Dobson, Kim..................       593     Dockery, Sean..        593
Dodson, Sara.................       593     Doell, Laura...        593
Doering, Amy.................       593     Doino, Mary....        594
Dolan, Elaine................       594     Dolan, Julia...        594
Doll, Rebecca................       594     Dombek, Betty          595
                                             J..
Domenick, Sarah..............       595     Donley, Blake..        595
Donnelly, Michael............       595     Donnelly,              595
                                             Robert.
Donohue, Jean................       596     Donovan, Elaine        596
Donovan, C.S.J., S.                 596     Doonan, Shelley        596
 ``Marguerite'' E.,.
Dorais, Terri................       596     Dorais, Tom....        597
Dorety, Naoma................       597     Dorfman, Ellen.        597
Dotter, Don..................       597     Dougherty, J.          598
                                             Kelly.
Doughty, Joyce...............       598     Douglas, Carol.        598
Douglas, Dianne..............       598     Douglas,               598
                                             Doretha.
Dowd, Therese................       598     Dowdy, Perry...        599
Dowell, Maria................       599     Downer, Kevin          599
                                             W..
Downey, John.................       599     Doyle, Margaret        599
Drake, Gillian...............       600     Drapkin,               600
                                             Christiane.
Drechsler, Anna..............       600     Drehfal, Anne..        600
Dreibelbis, Carol............       602     Dresher, Merlin        602
Dresner, Randi...............       602     Dressel, Gail..        603
Drew, Linda..................       603     Driscoll, Kelly        603
Drivon, Theta................       603     Droz, Ben......        604
du Bois, Julie...............       604     Duay, Federico.        604
Dubs, Thomas.................       604     Dudley,                604
                                             Rosemary.
Duffy, Connor................       604     Duffy, Merci...        605
Dugan, Michelle..............       605     Dugar, Alice...        605
Duggan, Eric.................       605     Dujon, Phyllis.        605
Duke, Kimberly...............       605     Dunaj, Michele.        606
Dunaway, Vicki...............       606     Dundee, Kathy..        606
Dungan, Allison..............       606     Dunham,                606
                                             Patricia.
Dunlap, Ginger...............       607     Dunleavy,              607
                                             Timothy.
Dunlop, Hollis...............       607     Dunn, Cheryl...        607
Dunn, Wesley.................       608     Dunnagan, Shawn        608
Duster, Jennifer.............       608     Duvall, Mary...        608
Dux, Clara...................       609     Dvorsky, Sandy.        609
Dybdahl, Ryan................       609     Dyer, Donna....        609
Dyer, Doug and Susanne Hesse.       610     Dyke, Robert W.        610
Dykoski, Dr. William ``Skip''       610     Dykstra, Pamela        610
Dyvine, Padma................       610     Dzialek, Iwona.        611
Eads, Claudia................       611     Earnst, John...        612
Easley, Faye.................       612     Easter, Anne...        612
Easterday, Cynthia...........       612     Eaton, Darla...        613
Eaton, Edna..................       613     Eaton, Kathleen        613
Eaton, Tyler.................       613     Eaton, M.D.,           613
                                             Christian T..
Ebel, Kenneth................       614     Eberle, Martha.        614
Ebright, Matthew.............       614     Echele, Alise..        614
Echevarria, Rebecca..........       615     Eckroth,               615
                                             Cynthia.
Edain, Marianne..............       616     Eddington, Anna        616
                                             Claire.
Eelstein, Amy................       617     Edgel, Lyn Eric        617
Edgett, Karin................       617     Ediger, Evelyn.        617
Edmonson, Michelle...........       617     Edmunds, Steve.        618
Edwards, Ann.................       618     Edwards, Karen.        618
Edwards, Mark V..............       618     Efraimson,             618
                                             Barbara.
Eichelberger, Carol..........       619     Eisbach, David.        619
El, Mira.....................       619     Elandt,                619
                                             Virginia.
Eldridge, Sara...............       619     Elfering,              619
                                             Marlene.
Elliott, Andrea..............       620     Ellis, Angele..        620
Ellis, Cathy.................       620     Ellis, Kathryn.        620
Ellis, Molly.................       620     Ellis, Zandra..        620
Elmore, James................       621     Embry, Obiora..        621
Emerson, Karen...............       621     Emery, Heather.        621
Emery, Jason.................       622     Emlinger, Wendy        622
Emrich, David................       622     Enfield, Susan.        622
Eng, Erica...................       622     Engdahl, Anna..        623
Engels, Lisa.................       623     England, Gail..        623
England, Kathleen............       623     England,               624
                                             C.E.C.,
                                             C.F.S.E.
                                             Thomas.
Engle, Richard...............       624     English,               624
                                             Carroll.
Engstrom, Doris..............       625     Enser, Suzanne.        625
Ensign, Diane................       625     Enzmann,               625
                                             Narcissa.
Epshteyn, Svetlana...........       626     Eran, Nadia....        626
Erceg, Julian................       626     Ergo, Dave.....        626
Erickson, Christine..........       626     Erickson, Sara.        626
Erlanger, Joan...............       627     Ernissee, Terri        627
Ero, Ivy.....................       627     Eschenlauer,           627
                                             Arthur.
Esquerra, Ronald.............       628     Essex County           628
Estrella, Susan..............       629      Soil and Water
                                             Conservation
                                             District.
Estrello, Angela.............       629     Etter, Leilani.        629
Ettinger de Cuba, Stephanie..       630     Evans, Alvin...        631
Evans, Dianne................       632     Evans, Jessica.        632
Evans, Joy...................       632     Evans, Morgan..        632
Evatt, Josephine.............       632     Evenson,               633
                                             Marilyn.
Everett, Beth................       633     Everett, Ed....        633
Fabing, Keith................       633     Facey, Laurel..        634
Fahsel, Brad.................       634     Fairchild,             634
                                             Kathy.
Fairweather, Erin; Sperling,        634     Farace, Robert.        635
 Timmy.
Farley, Candace..............       635     Farley, Eugene         635
                                             S..
Farmer, Fran.................       636     Farnsworth, Stu        636
Farrar, Alonna...............       636     Farrelly, James        636
Farrington, Carl.............       636     Farris, Patti..        636
Farris, S.N.S., Julie G......       636     Farrow-Bowen,          637
                                             Patricia.
Fasenfest, Harriet...........       637     Fassanella, Jim        637
Fath, Barbara................       637     Faurote,               638
                                             Jennifer.
Fauvell, Teresa..............       638     Favre, Tracy...        638
Fay, Bob.....................       639     Fazzi, Michael.        639
Fee, Penny...................       639     Feibel, Theodor        639
Feinberg, John...............       640     Feissel, John..        640
Feldt, Shela.................       640     Felger, Andrew.        640
Felix, Lindy.................       640     Felt, Brian....        640
Felter, Linda................       640     Felton, Susan..        641
Fenn, Suzanne................       641     Ferguson, Chris        641
Ferguson, Jim................       641     Ferrari, Gerard        642
Ferrell, David...............       642     Ferrier-               642
                                             Johnson, Donna.
Ferro, Kathy.................       643     Ferroggiaro,           643
                                             Suzanne.
Ferry, Rita..................       643     Feusner, Robin.        643
Fiedler, Alicia..............       643     Field,                 644
                                             Catherine.
Fies, M.D., Robert...........       644     Fifer, Nancy...        644
Fink, Penelope...............       644     Fink, Richard..        645
Finley, Mary Miho............       645     Finley-Shea,           645
                                             Barbara.
Finneran, Tom................       645     Finney, Vanessa        645
Fischel, Marya...............       646     Fischer,               646
                                             Elizabeth.
Fischer, Heather.............       646     Fisher, Barbara        646
Fisher, David................       647     Fisher, Karen..        647
Fisher, Melody...............       647     Fisher,                647
                                             Stephanie.
Fisher Kern, Madeleine.......       648     Fiske, Colin...        648
Fitch, Jr., Michael..........       648     Fitzgerald,            648
                                             Macleod.
Fitzner, Erin................       649     Flagg,                 649
                                             Gwendolyn.
Flanagan, Marianne...........       649     Flate, David...        649
Fleming, Judy................       649     Fleming, S.F...        650
Fletcher, Christine..........       650     Fletcher, Erin.        650
Fletcher, Ian................       651     Flickinger,            651
                                             Nathan.
Flitter, Danielle............       651     Florek, Janyse.        651
Flores, Margaret.............       652     Flores, Sharon.        652
Flores, Yomei................       652     Flournoy, Ruth.        652
Flynn, Ruthie................       653     Flynn, Sarah...        653
Foegen, Joseph...............       653     Fogarty, Dan...        653
Fogel, Jean..................       654     Fogel, Ken.....        654
Foley, Kyle..................       654     Folsom, Therese        654
Fonk, Ted....................       654     Fonooni, Candis        655
Fonti, Theesa................       655     Foote, Torie...        655
Forbes, Reese................       655     Ford, Leeann...        655
Ford, Steve..................       655     Forehand, Nancy        655
Forino, Christina............       656     Forlie, Kai            656
                                             Mikkel.
Formo, Aimee.................       656     Forster,               656
                                             Michael.
Fosdick, Helen...............       656     Foss, Pauline..        657
Fossett, Lee.................       657     Foster, Elaine.        657
Foster, Karen................       657     Foster, Michael        657
Foumberg, Leslie.............       657     Fowler, Sesame.        658
Fox, Agnes...................       658     Foy, M.A.,             658
                                             R.D., C.D.E.,
                                             Masha.
Frame, Kristen...............       658     Francis, Lelia         658
                                             Ann.
Franck, Faith................       659     Franco, Amy....        659
Frankel, Leroy...............       659     Frankenstein,          659
                                             Jean.
Franklin, Barbara............       659     Franklin,              660
                                             Cheryl.
Franks, Allan................       660     Franks, Jeanne.        660
Fraser, James................       660     Frazee, Christa        660
Frazer, Patty and Bob........       660     Frazier, Carol.        660
Frazier, Kimberly............       661     Frazier, Ruth..        661
Freckmann, Chad..............       661     Fredenthal,            662
                                             Ruth Ann.
Freedman, Luis...............       662     Freel, Susan...        662
Freeman, Geri................       662     Freeman,               663
                                             Jacqueline.
Freeman, Joseph..............       663     Freeman, Mary..        663
Freeman, Sandy...............       663     Freeman, Thomas        663
Freese, Jan..................       663     Freid, David...        664
Freitag, Lynn................       664     Freitas, Amanda        664
French, J....................       665     French, Jim &          665
                                             Lisa.
French, Rodney...............       666     Fretz, Lynne...        666
Friar, Susan.................       666     Fridgen, Pamela        666
Friedland, Fiona.............       666     Friedly,               667
                                             Krystal.
Friedman, Rebecca............       667     Friend, Doug...        667
Frisco, Christine............       667     Fritsch,               667
                                             Charles.
Frodel, Ann..................       668     Frompovich,            668
                                             Catherine J..
Fry, Marian..................       668     Frye, Mahala...        668
Fugitt, Christina............       669     Fuhrman, Andrea        669
Fullen, Charles E............       669     Fuller, Chris..        669
Fuller, Kathie...............       669     Fuller,                670
                                             Victoria.
Fulsome, Susan...............       670     Fulton, Will...        670
Fung, Sherman................       670     Funkhouser, Nan        670
Furrow, Eric.................       671     Gabriel, Sally.        671
Gabrielsen, Barbara..........       671     Gadsby,                671
                                             Patricia.
Gaffney, William.............       671     Gafouri, Yana..        672
Gagnon, Sandra...............       672     Gaignard,              672
                                             Theresa.
Gaines, Brenda...............       672     Gaines, Katrina        672
Galarneau, Louise............       672     Galas, Robin...        673
Gale-Gonzalez, Rebecca.......       673     Galen, Ron.....        673
Gallagher, Kevin.............       673     Gallaher, Peggy        673
Gallinger, Rob...............       673     Gallivan, Jason        674
Gallo, Paula.................       674     Gancher, Susan.        674
ganMoryn, Croitiene..........       674     Gannon, Dan....        675
Gannon, Peggy................       676     Gannon, Thomas.        676
Garcia, Celin................       676     Garcia, Joshua.        676
Gardiner, John...............       676     Gardner, Angela        677
Gardner, Arnie...............       677     Gardner, Elias.        678
Gardner, Gail................       678     Garlette,              678
                                             William.
Garms, Ellen.................       678     Garodia, M.D.          678
                                             Prachi.
Garrison, Grace..............       679     Garvett, Esther        679
Garza, Armando...............       679     Gasperini,             679
                                             Jennifer.
Gast, Paul...................       680     Gatz, Cheryl...        680
Gaus, Christine..............       680     Gautier,               680
                                             Roberto.
Gawlikoski, Jay..............       681     Geaci, Suzanne.        681
Gebhardt, Peter..............       681     Geist, Katrin..        682
Gemar, LaVerne...............       682     Gendron, Marya.        682
Genest, Karen................       682     Genin, Merideth        682
Gensheimer, Greg.............       683     George, Carol..        683
George, Chris................       683     George, Darien.        683
Georger, Michael.............       683     Geraci, Dr.            688
                                             Robert M..
Gerdes, Cynthia..............       686     Gershgorn,             686
                                             Laurie.
Gesch, E'Lonna...............       686     Geyer, Carol...        686
Ghicks, Patsy................       686     Ghirla, Leslie.        686
Giammattei, Victor...........       687     Gibbon, Barbara        687
Gibbons, Jo..................       687     Gibbs, Rozanne.        687
Gibellina, Glen..............       687     Gibson,                688
                                             Marshall.
Gibson, Michael..............       688     Giesy, Theo....        688
Gifford, Dawn................       688     Gifford,               689
                                             Richard.
Giglio, Bernadette...........       689     Gilbert, Marsha        689
Gilbert, Valerie.............       690     Gilchrist,             690
                                             Claire.
Gill, L.F.J..................       690     Gillanders, J.         690
                                             David.
Gillespie, Bob...............       690     Gillett, Erin..        691
Gilman, Christina............       691     Gilman, Steve..        691
Gilmore, Jamie...............       694     Gilroy, David..        694
Gilson, Erinn................       694     Gimmeson,              695
                                             Michael.
Ginn, Anne; on behalf of            695     Ginsberg,              697
 Susan Ellis Goodell.                        Caroline.
Giordano, Deborah............       697     Giorgi, Justin.        698
Giovannini, Karen............       698     Girvin,                698
                                             Jennifer.
Gish, Diedre.................       698     Given, Steve...        699
Givens, Nancy................       699     Givens, Roger          699
                                             G..
Givers, David................       699     Glascock,              699
                                             Katherine.
Glaser, Aviva................       699     Glaser, Jean...        704
Glaston, Joe.................       704     Glatter,               704
                                             Katherine.
Glaub, Ted...................       704     Gleason, Laura.        709
Gleeson, Donna...............       709     Gleeson, Karen.        709
Glennon, Allison.............       709     Glines, Jessica        709
Glomski, Catherine...........       710     Glos, Jackie...        710
Glover, April................       710     Gnat, Michael..        710
Gocher, Mary.................       710     Gockel, Galen..        711
Godich, Marcia...............       711     Goebel, Judy...        711
Goebel, Michael..............       711     Goeckermann,           711
                                             John.
Goedken, Martin..............       711     Goertz,                712
                                             Elizabeth.
Goetz, Linda.................       712     Goguen, Laurie.        712
Goldberg, Gary...............       712     Goldberg,              712
                                             Halina.
Goldberg, Sarah..............       712     Golden, Birdee.        713
Golden, Gabe.................       713     Goldenberg,            713
                                             Helen.
Goldenberg, Laura............       713     Goldman, Paul..        713
Goldsberry, Ray..............       714     Goldsmith,             714
                                             Bruce.
Goldsmith, Cathy.............       714     Goldstein, Joan        714
Golightly, Susan.............       714     Gomez, Carissa.        714
Gomez, Hilda.................       715     Gontard, Caren.        716
Gonzales, Anthony............       716     Gonzales,              716
                                             Christine.
Gonzales, Crystal............       716     Gonzales, Jr.,         716
                                             Frank.
Gonzalez, Aida...............       716     Gonzalez,              717
                                             Cynthia.
Gonzalez, Katie..............       717     Gonzalez,              717
                                             Nicole.
Gonzalez, William G..........       717     Good, Aimee....        717
Good, Philip A...............       718     Goodman, Anne..        718
Goodman, Arifa...............       720     Goodman, Ellen.        720
Goodman, Margaret............       720     Goodwater,             721
                                             Heather.
Goodwin, Karen...............       721     Gordon,                721
                                             Alexandra.
Gorko, Gloria................       721     Gornick, Janet.        721
Gorski, Joe..................       721     Goss, Harlyene.        722
Gosson, Grace................       722     Goubert, Debrin        722
Gouge, Deborah...............       722     Gouveia,               722
                                             Christine.
Gozdzialski, John............       722     Grabbe,                723
                                             Alexandra.
Grabow, Tom..................       723     Grace, Harry...        723
Graf, Richard................       724     Graff, Gail G..        724
Graham, Bonnie Jones.........       724     Graham, Diana..        724
Graham, Jon..................       725     Graham, Laura          725
                                             and Carl.
Graham, Nancy................       725     Grames,                725
                                             Patricia.
Grandstaff, Lisa.............       725     Granning,              726
                                             Anders.
Grant, Ann...................       726     Grant, Marsha..        726
Gratsch, Grace...............       726     Graves, Tammy..        726
Graves, Terrell..............       726     Graves, Jr.,           726
                                             Herbert
                                             ``Herb'' R..
Gray, Jeff...................       727     Gray, Mary.....        727
Gray, Natalie................       728     Gray, Pamela...        728
Gray, Pilar..................       728     Gray, Sue......        728
Gray, Sylvia Ruth............       729     Gray, Yuriko...        729
Graziano, Mary...............       729     Grebanier,             729
                                             Marian.
Grecchi, Giulio..............       729     Greco, Loris A.        730
Green, Carol.................       730     Green, David...        730
Green, Mary..................       730     Greenbaum,             731
                                             Dorian.
Greenberg, Joyce.............       731     Greene, Harry..        731
Greene, Jane.................       731     Greene, Vaughan        731
Greenia, Anne................       732     Greenland, Alan        732
Greenstein, Barry............       732     Greenstein,            732
                                             Cindy.
Greetham, Alex...............       733     Gregg, Sara....        733
Gregoire, Chris..............       733     Gregor, Carol..        733
Gregory, Andrew..............       733     Gregory, Claire        734
Gregory, Ellen...............       734     Gregory,               734
                                             Jennifer.
Gregory, T...................       734     Grey, Doris....        735
Greymoon, Deborah............       735     Grier, Audrey..        735
Griffin, Brwyn...............       735     Griffin, Hon.          735
                                             Robert T..
Griffin, Kasandra............       748     Griffin,               749
                                             Stephanie.
Griffith, Linda..............       749     Griffiths,             749
                                             Frances.
Griggs, Richard..............       749     Grimaldi, Lynne        749
Grimm, R.....................       749     Groell, Jacob..        750
Groen, Jen...................       750     Groff, Stan....        750
Grosch, Judy.................       751     Gross, Cheryl..        751
Gross, Dena..................       751     Grossman, Stacy        751
Grove, Earl..................       751     Grove, Jennifer        752
Grove, Nancy.................       752     Groves, Linda..        752
Grubaugh, Janet..............       752     Gruenstein,            753
                                             Catherine.
Guare, Sarah.................       753     Gubman, Joanna.        753
Gubman, Michelle.............       753     Guenther, Jean.        753
Guerra, Michael..............       754     Guerrero,              754
                                             Ricardo.
Gugich, George...............       754     Guignard,              754
                                             Lilace.
Guillemard, Claude...........       754     Gungor, Saniye.        754
Gunter, Karlene..............       754     Guntert, Alice.        755
Gustafson, Judi..............       755     Gustafson, Rae         755
                                             Ann.
Guston, Joseph...............       755     Guthie, Sharyn.        755
Gutierrez, Nancy.............       755     Guzzon,                756
                                             Georgina.
Gwartney, Abra...............       756     H., Jennifer...        756
Haas, Bill...................       757     Haber, Martha..        758
Hachey, Suzanne..............       758     Hachfeld,              758
                                             Christine.
Hacker, Cherie...............       758     Hackney, Laura.        758
Hadda, Ilse..................       759     Haddad,                759
                                             Stephanie.
Hadfield, Ron................       759     Hadley, Robert.        759
Hadlock, Mark................       759     Haff, Harry....        759
Hafiz, Saeeda................       760     Hage, Cassandra        760
                                             P..
Hager, Alexandra.............       760     Haggard,               761
                                             Gabrielle.
Haining, Alice...............       761     Hakun, Karen...        761
Hale, Jeanette...............       761     Hales, Jennifer        761
Hales, Jil...................       761     Halfaker, James        762
Hall, Anthony................       762     Hall, Camille..        762
Hall, Denny..................       762     Hall, Dr. John         762
                                             R..
Hall, Marianne...............       762     Hall, Michele..        762
Hall, Pamela.................       763     Hall, Sarah....        763
Hallett, Shannon.............       763     Hamer, Nancy...        763
Hamill, Janet and Geoffrey...       763     Hamilton, Bruce        764
Hamilton, Kerri..............       764     Hamilton, Laura        764
Hamilton, Tricia.............       764     Hamilton,              764
                                             William.
Hamlin, Deborah..............       764     Hamlin, Thomas.        767
Hamm, Louise.................       768     Hamman, Tami...        768
Hammerman, Sally.............       768     Hammersley,            768
                                             Ross.
Hampton, Holly...............       769     Hampton, Steve         769
                                             & Mary.
Hance, Judith................       769     Hand, Judith...        769
Handly, Neal.................       770     Hanna, Helen...        770
Hanneken, Avery..............       771     Hannemann,             771
                                             Tracy.
Hannigan, Margaret...........       771     Hannum, Joyce..        771
Hansard, Robert..............       771     Hansen, Amy....        772
Hansen, Jan..................       772     Hansen, Jeremy         773
                                             A..
Hansen, Jerry and Joyce......       773     Hansen, Matthew        773
Hansen, Mitch................       773     Hansen, Yvonne.        774
Hanson, Anne.................       774     Hanson, Laurie.        774
Hanson, Melissa..............       774     Hanson,                775
                                             Michelle.
Hanson, Paul R...............       775     Harad, Allyn...        776
Hardenbergh, Sabrina.........       776     Harder, Susan..        776
Hardy, Fran..................       777     Hardy, Ingrid..        777
Harkness, Jim................       777     Harmet, Lynn...        778
Harper, Katherine............       778     Harr, Terry....        779
Harris, Cathy................       779     Harris, Jack H.        779
Harris, John.................       779     Harris, Karen..        779
Harris, Melissa..............       780     Harris, Myra...        780
Harris, Peggy................       780     Harris, Rebecca        781
Harris, Sharon...............       781     Harrison, Megan        781
Harrison, Richard............       781     Harriss,               781
                                             Patricia.
Harrs, Maggie................       782     Hart, Carole...        782
Hart, Dannie.................       782     Hart, Jessica..        782
Hartke, Spring...............       783     Hartley, Kara..        783
Hartzell, Will...............       783     Harvest, Lucy..        783
Hasara, Michael..............       783     Hash, Zachary..        783
Haskamp-Gebhardt, Denise.....       784     Haskins, Mark..        784
Hatfield, Joyce..............       784     Hatfield, Laura        784
Hathaway, Ross...............       784     Hatok, Sharon..        784
Haugen, Robert...............       785     Hauter, Sonja..        785
Havener, Kevin...............       785     Havens, Adrian.        785
Hawkes, Courtney.............       785     Hawkey, Eileen.        785
Hawkins, Blanche.............       786     Hay, Mark......        786
Hayakawa, Mitsuko............       786     Hayden, Gerard.        786
Hayden, Jeannette & James....       786     Hayden, Sara...        787
Hayes, Aisha.................       787     Hayes, Kim.....        787
Hayes, Linda.................       787     Hayes, Michelle        787
Hayes, Tim...................       788     Haynes, M.P.A.,        788
                                             Michael W..
Haytmanek, Maryann...........       789     Hayward, James.        789
Hayward, Merle...............       790     Healy, Craigen.        790
Healy, Elizabeth.............       790     Healy, Robyn...        790
Hearsey-McComas, Peta........       790     Heart, Jewel...        790
Heathcote, Susan.............       790     Heaton, Kristi.        791
Hebel, Sylvia................       791     Hebenstreit,           791
                                             Lyn.
Heckel, Susan................       791     Hedlund, Laura.        791
Hedstrom, Dwayne.............       792     Hee, Wynnie....        792
Heehs, Jeff..................       792     Heeringa, Jamie        792
Heeringa, Kelsey.............       793     Heffelfinger,          793
                                             Reed.
Heft, Mary...................       793     Hegelman, Gena.        794
Hegeman, George..............       794     Heggestad,             794
                                             Susan.
Heidt, Jeff..................       794     Heil, Doris....        795
Heimdal, Kari................       795     Heinlein,              795
                                             Malley.
Heinlin, Donna...............       796     Heiwns, Rosalie        796
Held, Laura..................       796     Helle, Lynette.        796
Helliwell, Gigi..............       796     Helm, Hannah...        797
Hemenway, Gayle..............       797     Hemesath,              797
                                             Daniel.
Hemesath, Phil...............       797     Hendershott,           797
                                             Carmen.
Henderson, Ella..............       797     Henderson,             797
                                             Heather.
Henderson, Janice............       798     Henderson,             798
                                             Jeanette.
Henderson, John..............       798     Henderson,             798
                                             Nancy.
Henderson, Paige.............       799     Henderson,             799
                                             Sherry.
Hendricks, Kate..............       799     Hendrix, Jean..        799
Hendrix, Linda...............       799     Henriksen,             799
                                             James.
Hensley, Michelle............       799     Henson, Karen..        800
Hepner, April................       800     Herbert, Joseph        800
Herd, Nicole.................       800     Hernandez,             800
                                             Cynthia.
Hernandez, GlendaRae.........       800     Hernandez, Joe.        801
Hernandez, Michelle D........       801     Hernday, Ann...        802
Hero, Irmine.................       802     Herold, Annique        802
Herr, John...................       802     Herrick, P.A.,         803
                                             Nancy; Roger
                                             Morrison, M.D..
Herron, Amy..................       803     Herron, Andria.        803
Herron, Pamela...............       803     Hertz, Barbara         803
                                             J..
Hess, Don....................       804     Hess, Phyllis..        804
Hesse, Karl..................       804     Hewett, Suzette        805
Hibbard, Angela..............       805     Hicks, Alison..        805
Hicks, Brian.................       805     Hicks, Molly...        805
Hiebel, Harvey...............       806     Higgins, Alison        806
Higgins, Bruce...............       806     Higgins, Laurie        806
Higgins, Susan...............       806     Hiland, Mike...        806
Hilburn, Amanda..............       806     Hildebrand,            807
                                             Cindy.
Hildenbrand, Nita............       807     Hill, Allison..        807
Hill, Steve..................       807     Hinahara,              808
                                             Gabrielle.
Hinds, Sandra................       808     Hinely, Aren...        808
Hinely, Robert...............       809     Hinrichs, Brant        809
Hipp, Ruth...................       809     Hirsch, Russell        810
Hirschinger, Jerry...........       810     Hirschman,             810
                                             Wendy.
Hirth, Carol.................       810     Hirthler, Jamie        810
Hirtle, John.................       811     Hladun, Barbara        811
Hocevar, Michael.............       811     Hochanadel,            811
                                             Susan.
Hocking, Amy.................       811     Hodges,                811
                                             Claudine.
Hodges, Sueyama..............       812     Hodges, Susan..        812
Hoeke, Heinz.................       812     Hoff, Linda....        813
Hoffman, Antonia.............       813     Hoffman,               813
                                             Carleton.
Hoffman, Marc................       813     Hoffman,               813
                                             Pauline.
Hoffmann, Janet..............       813     Hoffmann, Kyle.        813
Hogan, Mary..................       814     Hogan, Sabrina.        814
Holbrook, Laura..............       814     Holbrook,              815
                                             Stephanie.
Holcomb, Bill, Margot & Scott       815     Holder, Chris..        815
Holder, Rebecca..............       816     Holeton, Kim...        816
Holford, Sharon..............       816     Holland, Del...        816
Holland, Sage................       816     Hollar, Jeffrey        816
Hollens, Kim.................       817     Holley, Eutrina        817
Hollingsworth, Elizabeth.....       817     Hollis,                817
                                             Christopher.
Hollis, Judith...............       817     Hollopeter,            818
                                             Alicia Joy.
Holloway, Wilbur.............       818     Holmes, Delores        818
Holmes, Diane................       818     Holmes, Tyler..        818
Holste, Nancy................       818     Holsten,               819
                                             Chandra.
Holt, Kendra.................       819     Holtey, Ana....        819
Holtz, James.................       819     Holtzman, Jake.        819
Holtzman, Margot.............       819     Holzman,               820
                                             Michael.
Holzworth, Kelly.............       820     Homer, Deanna..        820
Hommel, Kady.................       820     Hong, Yunie....        820
Honold, Wendy................       821     Hoobing, Stan..        821
Hood, Gregory................       821     Hoos, Margaret.        821
Hoover, Kim..................       821     Hope, Rev.             822
                                             Glenda.
Hopkins, Brittany............       822     Horan, Robert..        823
Horjus, Maika................       823     Horn, Jane.....        824
Horner, Deborah..............       824     Horsman, Joanne        824
Hosek, Ruth..................       824     Hotaling, Nancy        824
Houben, Evelyn...............       824     House, Dixie...        825
Houseal, Brian L.............       825     Houseman, Alan         826
                                             W..
Houseman, David..............       827     Houston, Susan.        827
Houston, Tanya...............       827     Houtakker,             827
                                             Catherine.
Hovis, Kris..................       828     Howard,                828
                                             Christine.
Howard, Dale.................       828     Howard, Lori...        828
Howard, Mike R...............       828     Howard, Vernon.        829
Howe, James..................       829     Howell, Amanda.        829
Howell, Jo Anne..............       829     Hoyle, James...        830
Hoyt, Alleyne................       830     Hoyt, Linda....        830
Hoyt, Robin..................       831     Hoyt, Virginia.        831
Hubbard, Eric................       831     Hubbard, Margot        831
Huber, Carolle...............       831     Hubler, Michael        831
                                             S..
Huck, Christie...............       832     Hudson, Amy....        832
Hudson, Charles..............       832     Hudson,                832
                                             Michelle.
Hufford, Joseph..............       833     Huff-Sandstrom,        833
                                             Athena.
Hugenschmidt, Kitty..........       833     Huggins,               833
                                             Abigail.
Hughes, Brother & Sister J.R.       833     Huh, Loma......        834
Huig, Gerrit.................       834     Huisenga,              834
                                             Joshua.
Huismam, Gene................       834     Hulbert, Ned...        834
Hulett, Lisa.................       835     Huls, Robbin...        835
Hulse, Dean..................       835     Hultgren, Karen        835
Humburg, Judith..............       835     Humphrey,              836
                                             Matthew.
Humphreys, Kim...............       836     Humphreys,             836
                                             Roberta.
Hundley, Sally...............       836     Hunt, Joni.....        836
Hunter, Amy..................       836     Hunter, Gene...        837
Huntington, Barbara..........       837     Hurd, Lindsey..        837
Hurley, Brion................       837     Hurst, Pauline.        838
Huston, Lisa.................       838     Hutchinson,            838
                                             Julie.
Hutchison, Amber.............       838     Hutchison, Leah        838
Hwoschinsky, Paul............       838     Hybner, Laura..        838
Hyde, Jennifer...............       839     Hyland,                839
                                             Margaret.
Ianarelli, Monica............       839     Iatrides, Joan.        839
Ickes, Henry.................       839     Ievins, Janet..        839
Ifert-Miller, Katie..........       840     Ihm, Mary Ann..        840
Ihrig, Glen..................       840     Ijams, Lucy....        840
Ingersoll, Kate..............       840     Inglima, Laura.        841
Ingraham, Claudia............       841     Ingram, Martha.        841
Ingram, Mrill................       841     Intilli, Sharon        841
Irish, Kenneth...............       842     Irons, Edie;           842
                                             Elanne Kresser.
Irvine, Jeffrey..............       842     Isely, Laura...        842
Isensee, Michael.............       843     Isse, Antonio..        843
Iyog, Carlo..................       843     Izaguirre,             843
                                             Celia.
Jack, Allison................       843     Jackson, Amy...        844
Jackson, Barbara.............       844     Jackson, David.        844
Jackson, Kent................       845     Jackson, Lisa..        845
Jackson, Martha..............       845     Jackson,               846
                                             Maureen.
Jacobs, Deborah (WI).........       846     Jacobs, Deborah        846
                                             (MN).
Jacobson, Elizabeth..........       846     Jacobson,              846
                                             Michael.
Jacobson, Sarah..............       847     Jacobson,              847
                                             Shirley.
Jacoby, Ben..................       847     Jaeger, Brian..        847
Jaffe, Kaitlin...............       847     Jagiello, Carol        848
Jaillet, Susan...............       848     Jamerson, Susan        848
James, Lauren................       848     James, Lynda...        848
James, Stacy.................       849     James-Cupp,            849
                                             Abigail
                                             ``Abbe''.
Jammer, Danette..............       850     Jankus, Murray.        850
Janowski, Jon................       850     Janson, Elaine.        851
Janus, Joan..................       851     Janzen, Gayle..        851
Jarvis, Michelle.............       852     Jasienowski,           852
                                             Cathy.
Jawa, Raj....................       852     Jay, Bonnie....        852
Jayne, John..................       853     Jeffries, Jamie        853
Jena, Joy....................       853     Jenkins, Nancy.        853
Jenkins-Sherry, Corliss......       854     Jenney, Dina...        854
Jennings, Barbara............       854     Jennings, Mimi.        854
Jennings, Susan..............       854     Jensen, Erin...        855
Jensen, Sharlene.............       855     Jerrells,              855
                                             Patricia.
Jervis, Lisa.................       855     Jevitt, Gar....        855
Jiannacopoulos, Julia........       856     Jimenez,               856
                                             Lizzette.
Jimmerson, Glinda............       856     Jitchotvisut,          856
                                             Donna M..
Johansson, Donald............       857     Johnson, Ann...        857
Johnson, Bettemae............       857     Johnson, Carol.        857
Johnson, Chris...............       857     Johnson, Dean..        857
Johnson, Elizabeth...........       858     Johnson, George        858
Johnson, K.L.................       858     Johnson, Karl..        858
Johnson, Kathryn (TX)........       858     Johnson,               859
                                             Kathryn (MN).
Johnson, Leslie..............       859     Johnson,               859
                                             Michael.
Johnson, Michele.............       859     Johnson, Robyn.        859
Johnson, Ron.................       861     Johnson, Sharon        862
Johnson, Tim.................       862     Johnston, Bud..        862
Johnston, Rona...............       862     Johnston, Signa        862
Johnston, Veronica...........       862     Johnston, Vicki        863
Johnston-Keane, Kathy........       863     Jones,                 863
                                             Alexander.
Jones, Anthony...............       863     Jones, Diane...        863
Jones, Kris..................       864     Jones, Marilyn.        864
Jones, Maxine & Ralph D......       864     Jones, McKenzie        865
Jones, Morgan................       865     Jones, Nancy...        865
Jones, Nina..................       865     Jones, Paula...        865
Jones, Rosemary..............       866     Jones, R.N.,           866
                                             Karen.
Jordan, Callie...............       866     Jordan, Camille        866
Jordan, John.................       866     Jordan, JoLynn.        867
Jordan, Melissa..............       867     Jordan, Michele        867
Jordan, Patricia.............       868     Jordan,                868
                                             Stephanie.
Joslin, Aaron................       868     Joslin, Harriet        868
Joy, Nancy...................       869     Joyce, Cheryl..        869
Jozef, Paul..................       869     Judd, Lilia....        869
Judge, Pandora...............       869     Judkins, Lyn...        870
Juhlin, Mailyn...............       870     Julia, Kathryn.        870
Jung, Courtney...............       870     Junge, Roxanne.        871
Jurczewski, Carol............       871     Justice,               871
                                             Cynthia.
Kaczerski, Wendy.............       871     Kafka, Mo......        871
Kagan, Lucy..................       871     Kagel,                 872
                                             Katharine.
Kaiser, Jessica..............       872     Kaiser, Natasha        872
Kakuk, Shawn.................       872     Kaley, Jeff....        873
Kalifowicz-Waletzky, Roslyn..       873     Kalish,                873
                                             Benjamin.
Kalita, Brad.................       873     Kalscheur,             873
                                             Sandra.
Kambak, Kim..................       874     Kania, John....        874
Kann, Barbara................       874     Kansas, Sharon.        874
Kaperick, Paul...............       875     Kaplan, Adam...        875
Kaplan, Anne.................       875     Kaplan, Barry..        875
Kapoor, Caitlin..............       875     Kapuler, Ph.D.,        875
                                             Alan.
Karabelnikoff, Sally.........       876     Karbaumer,             876
                                             Klaus.
Karen, Brown.................       876     Karhu, Vicky...        876
Karie, Piper.................       876     Karim, Samantha        877
Karnecki, Theresa............       877     Karnezis, Jason        877
Karr-Segal, Patricia.........       877     Kasbergen,             878
                                             Cornell.
Kasdin, Stefani..............       879     Kaseman,               879
                                             Stephen.
Kassner, Kathryn.............       879     Kastle, Lindsay        879
Kathy, Wallenta..............       879     Katinsky,              879
                                             Matthew.
Katz, Barb...................       880     Katzenmeyer,           880
                                             Paula.
Kaufman, Lucy................       880     Kavanagh,              880
                                             Andrew.
Kavanagh, Maureen............       880     Kawa, Judith...        881
Kaye, Sheila.................       881     Keane, Meghan..        881
Kearnon, Landis..............       881     Keasbey, Edie..        881
Keating, Suzanne.............       882     Kegerize, Carol        882
Kegler, Lori.................       882     Keller, Karen..        882
Kelley, Dorinda..............       882     Kelley, Erin...        883
Kellogg, Jane................       883     Kellogg, Tracey        883
Kelly, Ann...................       883     Kelly, C.......        883
Kelly, Daniel................       883     Kelly, Jessica         884
                                             and Kasey.
Kelly, Margaret..............       884     Kelly, Patricia        884
Kelly, Thomas................       884     Kelly, William         886
                                             H..
Kelly Wright, Monica.........       890     Kempe, Vickie..        890
Kennedy, Christy.............       890     Kennedy,               890
                                             Richard.
Kennedy, Samuel..............       890     Kennedy,               890
                                             Tangela.
Kennenwood, Evelyn...........       891     Kennis, Lois...        891
Kent, Diane..................       891     Kent, Rebecca..        891
Kent, Zach...................       891     Kepner, Susan..        891
Keramaty, Valery.............       892     Kerr, Susan....        892
Kershaw, Lucas...............       892     Kertess,               892
                                             Margaret.
Kidd, Chestina...............       893     Kierstead,             893
                                             Susan.
Kiger, Chip..................       893     Kilchenstein,          893
                                             Kim.
Kiley, Patrick...............       893     Killeen, Maggie        894
Killinger, Deborah...........       894     Killingsworth,         894
                                             Carol.
Kilpatrick, Michael..........       894     Kim, Julie.....        896
Kimball, Clark...............       896     Kimball,               897
                                             Marlene.
Kimble, Kim..................       897     Kim-Geyer,             897
                                             Raena.
Kimmes, Sarah................       897     Kimsey, Rebecca        897
King, Elisa..................       897     King, Gayle....        898
King, Jean...................       898     King, Melanie..        898
King, Richard................       898     King, Wes......        898
Kinnaman, Rasha..............       898     Kinnie, Yannick        899
Kintner, Christine...........       899     Kinziger, Paula        899
Kiplinger, Sutton............       899     Kipp, James....        899
Kiritsis, Justin.............       900     Kirkilis,              900
                                             Alexandra.
Kirkpatrick, Mark............       900     Kirsanow, Lily.        900
Kirsch, Alison...............       900     Kirschbaum,            901
                                             Saran.
Kirschenman, Merlin..........       901     Kirtz, Harold..        901
Kissel, John.................       902     Kitrel, Andrea.        902
Kitsmiller, Janet............       902     Kittredge, Kim.        902
Kittrell, Donna..............       902     Kjono, Pamela..        902
Klahn, Sandra................       903     Klauer, Helmut.        903
Kleckler, Jan................       903     Klee, Amy......        903
Klee, Marjorie...............       903     Kleihauer,             903
                                             Paula.
Klein, Ann...................       904     Klein, Henry...        904
Klein, John..................       904     Klein, Judith          905
                                             E..
Klein, Kirsten...............       905     Klein, Molly...        905
Kleinwolterink, Lisa.........       905     Kleisinger,            905
                                             Laurie.
Klemp, Kenneth...............       906     Kliewer, Dr.           906
                                             R.H..
Kline, Larry.................       906     Klock, Angel...        906
Kluson, Robert...............       907     Knight, Renee..        908
Knoll, Anne..................       908     Knollenberg,           908
                                             Kimberly.
Knox, Connie.................       908     Knox, Kate.....        908
Knuth, Margaret..............       909     Knutson,               909
                                             Rosemary.
Knutzen, David and Betty.....       909     Kocsis, Joan...        909
Koda, Sperie.................       909     Koegel, Amy....        910
Koelsch, Matthew.............       910     Koenig, Ron....        910
Kokai, Elaine................       910     Kolber, Regina.        910
Kollar, Susan................       911     Konigsbauer,           911
                                             Steve.
Konkus, Claudia..............       911     Koon, Kitty....        911
Koplo, Harv..................       911     Kopp, Marilyn..        911
Korn, Meryle A...............       912     Koschmeder,            912
                                             Teresa.
Kosek, Kate..................       912     Koshik, Debi...        912
Kovitz, Johanna..............       912     Kowalewski,            913
                                             Douglas.
Kowalski, Kelly Ann..........       913     Kozak, Michael.        913
Kozel, Constance.............       913     Kozlowski,             913
                                             David.
Kozma, John..................       914     Kraemer,               914
                                             Marylou.
Kraft, Diane.................       914     Kraker, Marylin        915
Kramer, Ann..................       915     Kramme, Joel...        915
Kran, Bruce..................       915     Kranz, Greta...        915
Krasner, Michael.............       915     Krause, C.E....        916
Kravitz, Harold..............       916     Kreiter,               916
                                             Clarence.
Krieger Cottingham, Rebecca..       916     Krivin, Susan..        917
Kromminga, Geri..............       917     Kronenberg,            917
                                             Esther.
Krosnoff, Cam................       918     Krueger, Dianne        918
Krueger-Jackson, Frances.....       918     Krug, Ryan.....        919
Kruger, Robert...............       919     Krupnick, Wendy        919
Kruse, Scott.................       919     Kuehl, William.        919
Kuhns, Sara..................       920     Kukla, Hilary..        920
Kukla, Pamela................       920     Kukuczka, Jerry        920
Kumiega, Walter..............       920     Kunde, Amy.....        921
Kunisch, Harold J............       921     Kurland, Mike          921
                                             and Miriam.
Kurtz, Steven................       921     La Course,             921
                                             Michael.
Lack, Deanna.................       922     Ladd, Barbara..        922
LaDuc, Ryan..................       922     Laduke, Shawn..        923
Lafaye, Michelle.............       923     LaFreniere,            924
                                             Jioanne.
Laing, Barbara...............       924     Lakoff, George.        924
Lam, Theresa.................       925     L'Amarca, Joe..        925
Lambert, Gwen................       925     Lambert, Kris..        925
Lambrecht, Ida...............       926     Lamers, Vanessa        926
Lamkin, Tara.................       926     LaMothe, Tanya.        926
Lampi, Michael...............       926     Lampman, Gary..        927
Lampman,R.N., Marilee........       927     Landes, Rosanne        927
Landfried, Lauren............       927     Landis, Molly..        928
Landon, Joann................       928     Landry, Arthur.        928
Landry, Gisele...............       929     Landusky, Paul.        929
Lane, Abbie..................       929     Lane, Craig....        929
Lane, Daryn..................       929     Lane, Ginny....        930
Langer, Ph.D., Barb..........       930     Langford,              931
                                             Charles.
Langham, Shannon.............       931     Langhans,              931
                                             Judith.
Langhorne, Elizabeth.........       931     Langteau,              931
                                             Margaret.
Lannin, Susan................       931     Lanton, Ruth...        932
LaPorta, Angela..............       932     Larimore, Anna         933
                                             Lee.
Larkin, Gloria...............       933     Larrabee, Sarah        933
Larrieu, John................       933     Larsen, Denise.        933
Larsen, Winifred.............       934     Larson, Linda..        934
LaSalla, Linda...............       934     Lasensky,              934
                                             Elizabeth.
 LaSister, Coy M.............       934     Laster, Jr.,           935
                                             Ira.
Lauchlan, Jennifer...........       935     Laudenslager,          935
                                             John.
Lauder, Maureen..............       935     Laughingheart,         936
                                             Angela.
Laughlin, Rose...............       936     Lavine, Suzanne        936
Law, Suzanne.................       936     Lawrance, Liana        936
Lawrence, Chris..............       936     Lawrence,              937
                                             Tracey.
Lawry, Trina.................       937     Layer, Linda...        937
Layne, Betty.................       937     Layne, Linda...        938
Lazarski, Steve..............       938     Le Du, Holly...        938
Lea, Andrea..................       939     Leaf, Lucy.....        939
Leahy, Michael...............       939     Leahy, Nancy           939
                                             and Gary.
Leanza, Victoria.............       939     Leard, Lane....        940
Leavy, Jacqueline............       940     LeBer, Richard.        940
LeBlanc, Elaine..............       940     Ledden, Dennis.        941
Ledoux, Michele E............       941     Lee, Anthony...        943
Lee, Gloria..................       943     Lee, Rena......        943
Lee-Andersen, Charlotte......       944     Lee-Hazelton,          944
                                             Cavana.
Legault, Tina................       944     Legene, Anne...        944
Lehecka, Emily...............       944     Lehman, Heather        945
Lehman, Marian...............       945     Lehman, Steve..        945
Lehrer, Silvia...............       945     Leigh, Avra....        945
Leigh, Gary..................       945     Leikas, Len....        945
Leite, Susan.................       946     Lemieux, Joseph        946
Lemke, Janie.................       946     Lemon, Edward..        946
Lemons, Christa..............       946     Lempart, Lukasz        947
Lenert, Heidi................       947     Lennox,                947
                                             Patricia.
Lentz, Kelly.................       947     Leon, Nick.....        948
Leonard, Billie..............       948     Leonard, Joan..        948
Leonard, Rita................       948     Leopold, Sam...        948
Lepore, Lorraine.............       948     Lescher, Gail..        949
Lester, Daniel...............       949     Lester, Laura..        949
Lester, Russ; Jennifer              949     LeVasseur,             950
 Moffitt.                                    Courtney.
Leve, Joslyn.................       950     Levin, David...        950
Levin, Deborah...............       950     Levin, Gordon..        950
Levin, Penny.................       951     Levine-Small,          951
                                             Donna.
Leviton, Peggy...............       951     Lewis, Corinna.        952
Lewis, Donald................       952     Lewis, Graham..        952
Lewis, Jill..................       952     Lewis, Lawrence        952
Lewis, Patrick...............       953     Lewis,                 953
                                             Priscilla.
Lewis, Vicki.................       953     Lewman,                953
                                             Marianne.
Leyton, Oliva................       954     Lia, Barry.....        954
Liang, Linda.................       954     Libert, Wendie.        954
Libow, Robin.................       954     Lichatz,               955
                                             Julianna.
Lichtenberg, Regan...........       955     Lieberman,             955
                                             Yehudit.
Lillie, Michael..............       955     Lilliquist,            955
                                             Michael.
Limperes, David..............       956     Lindekugel,            956
                                             Laura.
Lindenmayer, Justin..........       956     Lindow, Denise.        956
Lindstrom, Annie.............       956     Linebaugh,             956
                                             Andrea.
Lines, Julian................       957     Link, Noah.....        957
Linton, Adrian...............       957     Lipham, Rita...        958
Lipkin, Suzanne..............       958     Lish, Vicki....        958
Liston, Lynn.................       958     Littaua, Merci.        958
Littell-McWilliams, Kara.....       959     Little, Anthony        959
Livermore, Shanna............       959     Livingston,            959
                                             Helen.
Livingston, Richard..........       959     Livingston,            960
                                             R.D., Sally.
Lizanich, Beverly............       960     Lizer, Deja....        960
Lloyd, Jane..................       961     Lloyd, Kurt....        961
Loar, Anna...................       961     Lobdell, James.        961
LoBue, Margaret..............       961     Locker, Georgia        962
Lockhart, Trent..............       962     Lockington,            962
                                             Cory.
Lockspeiser, Diane...........       962     Loeffler,              962
                                             Edward.
Loftfield, Anne..............       962     Logan, Corinne.        963
Logan, Shane.................       963     Logan Smith,           963
                                             Kathleen.
Lohrmann, Sharon.............       965     Loken, Rebecca.        965
Lombardo, Robert.............       965     LoMonico,              965
                                             Scheryl.
Lomp, Donna..................       966     Long, David....        966
Long, Dwight.................       968     Long, Gloria...        969
Long, Holly..................       969     Long, John.....        969
Long, Valerie................       969     Longley, Toni..        969
Longley, P.E., B.C.E.E., Dr.        970     Loomis, Adam...        971
 Karl.
Loos, Jennifer...............       971     Lopes, Loren...        971
Lopez, Elleri................       972     Lopez, Laura...        972
Lopez, Stacia................       972     Lopez, Thomas..        973
L'Orange, April..............       973     Loren, Wen.....        973
Loring, Lloyd................       974     Lorio, Joe.....        974
Louise, Sabrina..............       974     Love, Kathryn..        974
Love Lippman, Arlene.........       974     Loveday, George        974
Low-Beer, Sheila.............       975     Lower, Stephan.        975
Lowery, Rebecca..............       975     Lowrance, Sanna        975
Lowrey, Emma.................       976     Lowry, Lyn.....        976
Lowry, Sarah.................       976     Lubetkin, Carol        976
Lubin, Jill..................       976     Luca, Michael..        977
Lucchesi, Krista.............       977     Luce, Barbara..        977
Luckert, Ursula..............       977     Lueders, Nancy.        977
Luib, Dr. Catherine..........       977     Luley, Caroline        978
Lumbard, Neil................       978     Lumpkin, Kirk..        978
Lundin, Rhonda...............       978     Lundy, Kathleen        978
                                             L..
Lunemann, Patrick............       979     Lung, James....        979
Lunn, Christopher............       980     Luongo, Joanne.        980
Lupher, Grant................       980     Luria, Mayra...        980
Luscomb, Deborah.............       980     Lussier, Marc..        980
Lutes, Essie.................       981     Luton, Harry...        981
Luttrell, Laura..............       981     Lux, Patricia..        982
Lux-Kosiewicz, Lynnea........       982     Luzwick, Aimee.        982
Lyle, Deborah................       982     Lynch, David...        982
Lynch, Jill..................       983     Lynch, Martha..        983
Lynch, Megan.................       983     Lynn, Marcy....        984
Lynn, Matthew................       984     Lynn, Meghan...        984
Lyon, Brenda.................       984     Lyon, Janet....        985
Lyons, Curt..................       985     Lyons, Shannon.        985
Ma, Charles..................       985     MacDonald, Joan        985
                                             and Wallace.
Macdonald, JoAnn.............       985     MacDonald, Leo.        985
MacDonald, Myra..............       986     MacDonald              986
                                             Hawke, Shaun.
MacDougall, Marie............       986     MacGregor, Adam        986
MacGregor, Susanna...........       986     MacKenzie,             987
                                             Therese.
MacLeod, Deb.................       987     MacLeod, Dianna        987
Maciborka, Margaret..........       987     Maciel,                987
                                             Christine.
Macy, Nancy..................       987     Maddox, Tia....        988
Mader, Monica................       988     Madigan,               988
                                             Carleen.
Madsen, Rebecca..............       988     Maehr, Jeff....        988
Maeroff, Rachel..............       989     Magee, Jon.....        989
Magiasis, Jimmy..............       990     Maglione,              990
                                             Jennifer.
Magnuson, Angela.............       990     Maguire, Jeanne        990
Mahamdi, Cynthia.............       990     Mahler,                991
                                             Margaret.
Mahoney, Kate................       991     Maille, Valerie        991
Main, Claudette..............       991     Maine, Gretchen        991
Mains, Donna.................       992     Maiurro,               992
                                             Christopher.
Major, Judy..................       992     Makarevich,            992
                                             Iggy.
Maker, Janet.................       993     Malcore, Anne..        993
Malin, Edith.................       993     Mallery, Robin.        993
Malloy, Janie................       993     Malnati, Peggy.        994
Malone, Ann..................       994     Manalili,              994
                                             Barbara.
Manalo, Paula................       994     Manasia, Florie        995
Mancuso, William.............       995     Mandel, Melissa        995
Mandell-Rice, Bonnie.........       995     Mangan, Niall..        996
Mann, Michelle...............       996     Mann, Patti....        996
Manno, Sarah.................       996     Mansell,               996
                                             Callista.
Mansfield, Steven............       996     Manus, Deborah.        997
Maquilan, Al Francis.........       997     Maram,                 997
                                             Nathaniel.
Marchioli, Marc..............       997     Marcus, Merle          997
                                             Ziporah.
Margolis, Jean...............       997     Mariano,               998
                                             Jennifer.
Marie, Lorraine..............       998     Marinkovich,           998
                                             Mart.
Mark, Carole.................       998     Marko, Lynne...        998
Markowicz, Bertha............       999     Markowitz,             999
                                             Laura.
Marks, Joan..................       999     Marner, Eugene.        999
Marsh, Mary..................       999     Marsh, Nancy...        999
Marshall, Carolyn............      1000     Marshall, Lisa.       1000
Marshall, Thomas.............      1000     Marsman, Amy...       1001
Martens, Brian...............      1001     Martens, Klaas.       1001
Martin, Amy..................      1001     Martin, Avril..       1002
Martin, Barbara (NY).........      1002     Martin, Barbara       1002
                                             (MA).
Martin, Byron................      1002     Martin, Cody...       1003
Martin, Emilie...............      1003     Martin, Holly..       1003
Martin, Jeff.................      1003     Martin,               1003
                                             Katherine.
Martindale, Gayla............      1004     Martin-Errick,        1004
                                             Rena.
Martino, Lisa................      1004     Martinovic,           1004
                                             Lisa.
Martucci, Janet..............      1004     Marvin, Tamar..       1004
Masanz, Timothy..............      1005     Masilko,              1005
                                             Michael.
Mason, Kathryn...............      1005     Mason, Kirby...       1005
Mason, Marilyn...............      1005     Mason, Richard.       1006
Masoner, Barbara.............      1006     Masters, Areta.       1006
Mastro, Jim..................      1006     Mastrostefano,        1006
                                             Cassandra.
Mateen, Haneefa..............      1007     Matejcek, Lynne       1007
Mateo, Beatriz Ivelisse......      1007     Mathews, Adam..       1008
Mathews, Christine...........      1008     Mathews,              1008
                                             Jennifer.
Mathews, Lillian.............      1008     Mathews,              1008
                                             Millard.
Mathis, Bruce................      1009     Matoian,              1009
                                             Richard.
Matsuda, Laurel..............      1010     Matthes, Janus.       1011
Matthews, Thomas.............      1011     Mattson, Judith       1011
Maurer, Scott................      1011     Maurer, Yevette       1011
Mawji, Debora................      1012     Maxon, Dawn....       1012
May, Andrew..................      1012     May, Emily.....       1012
May, Tammy...................      1013     Mayberry,             1013
                                             Sheila.
Mayer, Corey.................      1013     Mayer, Glenna..       1013
Mayerat, Robin...............      1014     Maynard-Bible,        1014
                                             Lisa.
Mayo, Nancy..................      1014     Mays, Linda....       1014
Mazer, Rochelle A............      1014     Mazeroll,             1014
                                             Heather.
Mazzaferro, Deb..............      1015     Mazzitello,           1015
                                             M.S.W.,
                                             L.I.C.S.W.,
                                             John.
McAdam, Gloria...............      1015     McAndrew, Dr.         1016
                                             Philip.
McArthur, Kris...............      1016     McAuliffe,            1016
                                             Cynthia.
McBride, Lynne...............      1016     McBride, M.....       1017
McBride, Virginia............      1017     McCabe, Jeff...       1017
McCabe, Jody.................      1017     McCabe,               1018
                                             Michelle.
McCaffrey, Marie.............      1018     McCague, Audrey       1018
McCammon-Hansen, Nancy.......      1018     McCann, Annika.       1019
McCann, Sheri................      1019     McCarron, Andy.       1019
McCarter, Maureen............      1019     McCarthy, Caly.       1019
McCarthy, James..............      1020     McCarthy,             1020
                                             Suzanne.
McCartney, Kim...............      1020     McCausland,           1020
                                             Rachel.
McChesney, Larry.............      1020     McClain, Mikel.       1021
McClave, Lois M..............      1021     McClave,              1021
                                             Richard.
McClave, Robin...............      1021     McClave, Scott.       1021
McCleave, Jeff...............      1022     McClellan,            1022
                                             Michael.
McClelland, Frances..........      1022     McClintock,           1022
                                             B.A..
McCluskey, Sue and Brian.....      1023     McConnell, Karl       1023
McCool, Melissa..............      1023     McCormack, Kim.       1023
McCormick, Sarah.............      1023     McCracken,            1024
                                             Gloria.
McCracken, Grant.............      1024     McCullah,             1024
                                             Connie.
McCullah, Dennis.............      1024     McCulley, Karen       1025
McCulloch, Martha............      1025     McDaniel, Abbi.       1025
McDaniel, Colleen............      1025     McDermott,            1025
                                             Pamela.
McDonnell, Margaret..........      1026     McFadden,             1026
                                             Miriam.
McFadden, Steven.............      1026     McFarland, Pat.       1026
McGill, Melissa..............      1027     McGillivary, M.       1027
McGinley, Kristine...........      1027     McGlashan,            1027
                                             Marie.
McGlynn, Richard.............      1027     McGowan,              1027
                                             Katherine.
McGowan, Laura...............      1028     McGrath,              1028
                                             Elisabeth Ann.
McGrath, Michelle............      1028     McGraw, Sarah..       1028
McGreevy, Donna..............      1029     McGregor, Molle       1029
McGuire, Donna-Christine.....      1029     McGuire, Mary..       1029
McGuire, Russell.............      1029     McHold, Sharon.       1029
McHugh, Patricia.............      1030     McIndoo,              1030
                                             Rachael.
McInerney, Matt..............      1030     McIntosh, Leah.       1031
McIntyre, Rene...............      1032     McKeen,               1032
                                             Katherine.
McKeown, Mary................      1032     McKiernan-            1032
                                             Allen, Genesis.
McKim, Mark..................      1033     McKinney,             1033
                                             Martha.
McKnight, M.S., R.D., L.D.,        1034     McLachlin,            1034
 Pat.                                        Mariella.
McLean, Alex.................      1034     McLean, L......       1034
McLellan, Dr. R.G............      1034     McLinden,             1034
                                             Robert.
McMahon, Betsy...............      1035     McManus, Dennis       1035
McManus, Megan...............      1035     McMichael, Ryan       1035
McMullin, Marnie.............      1036     McMurray, Jean        1036
                                             G..
McNabb, Patricia.............      1038     McNair, Amy....       1039
McNeely, Claire..............      1039     McPeak-LaRocca,       1039
                                             Trish.
McPhail, Tristian............      1039     McPhee, Marnie.       1039
McPherson, Holly.............      1040     McQuade, Pat...       1040
McSherry, Susan..............      1040     McTague,              1040
                                             Winston.
McTeer, Elizabeth............      1040     McVey, Jan.....       1040
McWaters, Trisha.............      1041     Mead, Morgan...       1041
Mead, Nathaniel P............      1041     Meader, Pao....       1041
Meadows, Anne................      1041     Meadows, Claire       1041
Meadows, Teri................      1042     Medina, A.E....       1042
Mednick, Hale................      1042     Medved, Lex....       1042
Meek, Leonor.................      1042     Meghani, Humera       1042
Meier, Diane P...............      1043     Meigs, Jane....       1043
Meisler, Miriam..............      1043     Mellentine,           1043
                                             Debra.
Melli, Rosemary..............      1043     Meltzer, Gwenn.       1044
Melvin, Nancy................      1044     Memhardt,             1044
                                             Joanne.
Mena, Patricia...............      1044     Menard, Marcy..       1044
Mendoza, Joseph..............      1045     Mensing, Max...       1045
Mercado, Elizabeth...........      1045     Merchant, Leone       1045
Merhar, Robert...............      1046     Merlino,              1046
                                             Lawrence.
Merook, Robyn................      1046     Merriman,             1046
                                             Edward.
Merton, Timothy..............      1046     Messick, Gene..       1047
Metz, John...................      1047     Meyer, Karen B.       1047
Meyer, Melanie...............      1048     Meyer, Patricia       1048
Meyer, Ronald................      1048     Micek, Ben.....       1048
Michaels, Alexis.............      1048     Michaels, Dale        1049
                                             Ekahi.
Michelli, Nancy..............      1049     Mickel, Kathy..       1049
Mickelson, Charles...........      1050     Middlebrook,          1050
                                             Melissa.
Middleton, David.............      1050     Miflin, Clare..       1050
Migeot, Christine............      1050     Mike, Jared....       1051
Milcarek, Thomas.............      1051     Milcowitz,            1051
                                             Robin.
Millard, Michael.............      1051     Miller,               1051
                                             Antoinette.
Miller, August...............      1052     Miller, Ben....       1052
Miller, David................      1053     Miller, Debra..       1053
Miller, Jennifer.............      1053     Miller, Jerre..       1053
Miller, Jessica..............      1053     Miller, Joan...       1054
Miller, Kathryn..............      1054     Miller, Kieru..       1055
Miller, Leah.................      1055     Miller, Linda..       1055
Miller, Lissa................      1055     Miller, Mark J.       1056
Miller, Nancy................      1056     Miller, Pam....       1056
Miller, Patricia.............      1056     Miller, Robert.       1056
Miller, Steve................      1057     Miller, Tamra..       1057
Miller, Tara.................      1057     Miller-               1057
                                             Nogueira,
                                             Ehren.
Miller-Stigler, Susan........      1058     Millete, Kari..       1058
Milliren, Pat................      1058     Millis, Henry..       1058
Mills, Andrea................      1058     Mills, Beverly.       1059
Mills, Igalious..............      1059     Mills, Kerry...       1059
Mills, Michael...............      1059     Mills, Saskia..       1060
Mills, Wanda.................      1060     Milosevich,           1060
                                             Karla.
Minde, Peter.................      1060     Minder, Marilyn       1060
Miotto, Madeline.............      1060     Mirabal, Tess..       1061
Mires, Rich..................      1061     Mitchel, Teresa       1061
Mitchell, Alexander..........      1061     Mitchell, Brent       1061
Mitchell, Clint..............      1061     Mitchell,             1061
                                             Edward.
Mitchell, Joan...............      1062     Mitchell, John.       1062
Mitchell, Robin..............      1062     Mitro, Eileen..       1062
Mittelberger, Alison.........      1062     Mittenberg,           1063
                                             Mike.
Mlynczak, Raymond............      1063     Moaton, Anthony       1063
Moe, Valerei.................      1063     Moellering,           1063
                                             Ph.D., Doug.
Mohbacher, Alex..............      1064     Mohen, Anthony.       1064
Molatch, Kathleen............      1064     Mole, Sally....       1064
Moller, Peter G..............      1065     Moller, Renee..       1065
Moloney, Kathy...............      1065     Moltzen, Kelly.       1065
Mondor, Shannon..............      1066     Mone, Carol....       1066
Money, Barbara...............      1067     Mongoven, Ann..       1067
Monjoy, Kim..................      1067     Monroe, Gloria.       1067
Monroe, Richard..............      1067     Monserrat,            1067
                                             Ariel.
Monson, Ruth.................      1068     Montano,              1068
                                             Julianne.
Montanus, Lisa...............      1068     Monteiro,             1068
                                             Darrin.
Montgomery, Chris Ellen......      1070     Montgomery,           1070
                                             Deborah.
Montgomery, Edith............      1070     Montgomery,           1070
                                             Lanelle.
Montgomery, Lynn.............      1070     Montgomery,           1070
                                             Patti.
Moodie, Jane.................      1071     Moody, Allen...       1071
Moomaw, Nathan...............      1071     Mooney,               1072
                                             Elizabeth.
Mooney, Len..................      1072     Moore, Alissa..       1072
Moore, Brian.................      1073     Moore, Carrie..       1073
Moore, Emilie................      1073     Moore, Emily...       1073
Moore, Lauren................      1074     Moore, Leslie..       1074
Moore, Lorraine..............      1074     Moore, Lynn....       1074
Moore, Michele...............      1075     Moore, Terri...       1075
Moorman, Rachel..............      1075     Moose, Mary           1075
                                             Etta.
Moran, Jana..................      1075     Morford,              1076
                                             Patrica.
Morgan, Alexandra............      1076     Morgan, Angel..       1076
Morgan, Bill.................      1076     Morgan,               1076
                                             Christopher.
Morgan, William..............      1077     Morgese,              1077
                                             Richard.
Morin, Toochis...............      1077     Morley, Robert.       1077
Morner, Gabriel..............      1077     Morotti, Gloria       1078
Morretta, Rosemary...........      1078     Morrigan,             1078
                                             McKenna.
Morris, Chrys................      1078     Morris,               1078
                                             Elizabeth.
Morris, Gary.................      1078     Morris, John...       1079
Morris, Mary.................      1079     Morris, Nancy..       1079
Morris, Peter................      1079     Morris, Shirley       1079
Morrison, Chad...............      1080     Morrison,             1080
                                             Cheryl.
Morrison, Daniel.............      1080     Morrison,             1081
                                             Leslie.
Morrison, M.D., Roger; Nancy       1081     Morrissey,            1081
 Herrick, P.A..                              Bernard C..
Morrissey, Christine.........      1081     Morrissey,            1081
                                             Doredn.
Morrow, Samantha.............      1082     Morse, Anne           1082
                                             Juniper.
Morse, Elizabeth.............      1082     Morse, Linda...       1082
Morse, Stacy.................      1082     Mosca-Clark,          1083
                                             Vivianne.
Moscarella, Linda............      1083     Moser, Rich....       1083
Moshier, Melanie.............      1083     Moskowitz,            1084
                                             Robert.
Moss, Andrew.................      1084     Mosser, Laura..       1084
Motenko, Stephanie...........      1084     Moton, Jerome..       1084
Moughalian, Sato.............      1085     Moulder, Linda.       1085
Moxley, Laurie...............      1085     Moyer, Wayne...       1085
Mucklow, David...............      1085     Mueller, Dawn..       1086
Mueller, George B............      1086     Mueller, Mark..       1086
Muhly, Ernest J.P............      1086     Mukasa, Haruko.       1087
Mulcare, James...............      1087     Muller, June...       1087
Muller, Kris.................      1087     Mulligan, Renee       1087
Mullins, Cathleen............      1088     Mullins, M.J...       1088
Muniz, Beatriz...............      1088     Murakami,             1088
                                             Hideyuki.
Murdoch, Terri...............      1088     Murdock, Sara..       1088
Murnen, Rian.................      1089     Murphree, Sandy       1089
Murphy, Brian................      1090     Murphy, Erica..       1090
Murphy, Joy..................      1090     Murphy, Maureen       1090
Murray, Juan.................      1090     Murti, Vasu....       1091
Musella, Chris...............      1093     Musil, Natasha.       1093
Mussen, Alan.................      1094     Mutch, Mary....       1094
Myer, Georgia................      1094     Myers, Connie..       1094
Myers, David.................      1094     Myers, Kermit..       1095
Myers, Rene..................      1095     Myers, Sheri...       1095
Mysliwiec, Renee.............      1095     Nachazel-Ruck,        1095
                                             Jane.
Nagel, Ulrike................      1096     Nagy, Alexandra       1096
Nakos, Aristides.............      1097     Nance, Kathy...       1097
Naramore, Raven..............      1097     Nardo, Lisa....       1097
Nardone-McDonough, Diane.....      1097     Nash, Charlene.       1098
Nash, Janet..................      1098     Nason, Robin...       1098
Nassar, Gretchen Brooks......      1098     Nather, Christy       1099
Nava, Camille................      1099     Naylor, Kelsey.       1100
Neal, Karen..................      1100     Needham, Kyle..       1100
Neeser, Tawni................      1100     Neher, Martia..       1100
Nehl, Helga..................      1101     Nehl, Jenna....       1101
Neifert, Terri...............      1101     Neiman, Carol..       1101
Nelms, Zachary...............      1102     Nelson, David..       1102
Nelson, Greg.................      1102     Nelson, Jon....       1103
Nestaval, Nancy..............      1103     Neuger, Judy...       1103
Neville, Marcy...............      1103     Newberry, James       1103
Newcomer, Ariana.............      1103     Newcomer, Dawn.       1104
Newell, Shellie..............      1104     Newmark, Leone.       1104
Newton, Cecelia..............      1104     Newton, Heather       1104
Newton, Joe..................      1104     Newton, Marilyn       1105
Nichols, Jeannie.............      1105     Nichols, Jenny.       1105
Nichols, William.............      1105     Nicholson,            1105
                                             Margaret
                                             ``Ka'imi''.
Nicholson, Norma.............      1106     Nicol, John....       1106
Nicola, Nikki................      1106     Nicolson, Anne.       1106
Niemann, Valerie.............      1107     Nienhaus,             1107
                                             Steven.
Nierrernard, Robert..........      1107     Nihart, Alison.       1107
Nikolaiev, Katherine.........      1107     Nishihara, June       1108
Noble, Denise................      1108     Noble, June....       1108
Nodell, Nancy................      1108     Noel, Susan....       1108
Nolen, Travis................      1109     Nordin, Kristof       1109
Nordmann, Katharina..........      1109     Nordquist,            1109
                                             Susan.
Norquist, Raun...............      1109     Norris,               1110
                                             Kaleopono.
Norris, Patricia.............      1110     Norris, Scott..       1110
Northrop, Kim................      1110     Norton, Dean...       1110
Nothdurft, Anja..............      1116     Notkin, Debbie.       1116
Notz, Phillip................      1116     Novell,               1116
                                             Christine.
Novick, Renae................      1117     Nowlin, Helen..       1117
Noyce, Michael...............      1117     Noyola,               1117
                                             Angelica.
Nudelman, Olga...............      1117     Null, Kathryn..       1118
Nunes, Sandy.................      1118     Nuschler, Jr.,        1118
                                             Gary.
O'Brien, Donald..............      1119     O'Brien,              1119
                                             Floretta.
O'Connell, Jen...............      1119     O'Connor,             1119
                                             Joseph.
O'Brien, Colleen.............      1119     O'Brien, James.       1120
O'Brien, Maureen.............      1120     O'Callaghan,          1120
                                             Patti.
O'Connell, Daniel............      1120     O'Connor, B....       1121
O'Connor, Lauretta...........      1122     O'Leary,              1122
                                             Cornelia.
O'Malley, Margaret...........      1122     O'Nan,                1122
                                             Elizabeth.
O'Neal, Julia................      1123     O'Neil, Rory...       1123
O'Neill, Patrice.............      1123     Oaden, Arthur..       1125
Oakes, John..................      1125     Oakes, Vinnie..       1125
Oberlin, Rebecca.............      1125     Oedel, Grace...       1125
Oehldrich, Jenny.............      1126     Oehler, Clark..       1126
Ogden, Alison................      1127     Ohlinger, Merle       1127
Ojeda, Alex..................      1127     Okun, Lewis....       1127
Olenik, Lance................      1128     Olexa, Emery...       1128
Olive, Diane.................      1128     Oliver, Lauren.       1128
Oliver, Leesa................      1129     Olivier, Paula.       1129
Olles, Amy...................      1129     Olsen, K.......       1130
Olsen, Karen.................      1130     Olsen, Lisa....       1130
Olson, Diane.................      1131     Olson, Judith..       1131
Olson, K.....................      1131     Olson, Kerwin..       1132
Olson, Lori..................      1132     Olson, Pam.....       1132
Onderdonk, Carole............      1132     Ordonez,              1132
                                             Elizabeth.
Ordway, Penny................      1133     Orecchio, C.N.,       1133
                                             H.H.C.,
                                             Christa.
Orfanakis, Nick..............      1133     Oriard, Pamela.       1133
Orlich, Dana J...............      1133     Orlinski,             1133
                                             Patricia.
Orlowsky, Mark...............      1134     Orr, Mary......       1134
Ortiz y Pino, Jerry..........      1135     Orton, Joan....       1135
Osborne, Tony................      1135     Oshiro, Alex...       1135
Oswald, Rudy.................      1135     Ott-Davis,            1135
                                             Kathleen.
Overall, Marie...............      1136     Overlock, Ashle       1136
Overstreet, Romy.............      1136     Overton,              1136
                                             Barbara.
Owens, Sheila................      1136     Oxborough,            1136
                                             Jennifer.
P., Miranda..................      1137     Pacifico,             1137
                                             Kimberly.
Padilla, Monica..............      1137     Page, Alice....       1137
Page, C. Jay.................      1137     Page, Nick.....       1138
Painter, Katherine...........      1138     Paisley, Lorna.       1138
Pakradooni, Jennie...........      1138     Palm, Laura....       1138
Palmer, Deborah..............      1139     Palmer,               1139
                                             Paulette.
Palmer, Reed.................      1139     Palmer, Tim....       1140
Palo, Nimai..................      1140     Palomino, R.N.,       1140
                                             Brita.
Palthe, Penni................      1140     Paltin, Sharon.       1141
Pancake, Colleen.............      1141     Panciera,             1141
                                             Jeffrey.
Pangborn, Della..............      1141     Papale, Victor.       1141
Papandrea, John..............      1142     Papell, Tom....       1142
Pappas, Nicholas.............      1142     Paprocki, David       1142
Papsdorf, Elizabeth..........      1142     Paquette, Wayne       1142
                                             M..
Parchen, Terra...............      1143     Parfrey, Laura.       1143
Paris, Bruno.................      1143     Paris, Danette.       1143
Parisi-Shaw, Eleanor.........      1144     Parisot, Debora       1144
Park, Soohyen................      1144     Parker, Deborah       1145
Parker, Jennifer.............      1145     Parker, Mary Jo       1145
Parker, Rana.................      1146     Parker, Richard       1146
Parker, Steve................      1146     Parker, Susan..       1149
Parker, Tammy................      1149     Parker                1149
                                             Stellato,
                                             Robert.
Parkes, Emmy.................      1149     Parman, Nancy..       1150
Parra, Pinito................      1150     Parrette, Joe..       1150
Parris, Jack.................      1150     Parry, Michael.       1150
Parsons, Patricia............      1150     Party, Deena...       1151
Pasekoff, Dorene.............      1151     Pasichnyk,            1151
                                             Richard.
Paskowicz, Dawn..............      1151     Pasquariello,         1151
                                             James.
Passmore, Joanne.............      1152     Pasternack,           1152
                                             JoAnn W..
Pastin, Susan S..............      1152     Patent, Greg...       1152
Patnode, Angela..............      1152     Patrick,              1153
                                             Cynthia.
Patterson, Donnyl............      1153     Patterson, Jona       1153
Patterson, Skye..............      1154     Pattison, Erik.       1154
Patton, Chris................      1154     Patton, Marlene       1154
Patton, Robert...............      1155     Pauker,               1155
                                             Morgaine.
Pauksta, Diana...............      1155     Paul, Brittany.       1156
Paul, Cherie.................      1156     Paul, Rosalie..       1156
Pauley, Stephen..............      1156     Pauls, Deborah.       1157
Paulson, Jerry...............      1157     Pawlacyk, Laura       1157
Paxton, Dr. Jack.............      1157     Paxton, Laramie       1158
Payne, Carol.................      1158     Payne, Lia.....       1158
Pea, Colleen.................      1159     Peachey, Sue...       1159
Pealstrom, Hannah............      1160     Pearlman,             1160
                                             Patricia.
Pearson, Donna...............      1160     Pearson, Ellen.       1160
Pearson, Michelle............      1160     Pearson, Rae...       1161
Pearson, Robyn...............      1161     Peck, Angela...       1161
Peck, Gloria.................      1161     Peck, Kevin....       1161
Pecoraro, Victoria...........      1161     Peel, Donna....       1162
Peele, Randy.................      1162     Peeler,               1163
                                             Patricia.
Peet, Joan...................      1163     Pehlke, Robert.       1163
Pelkey, Clare................      1163     Pelletier, John       1163
Pennington, Joni.............      1163     Pennington,           1164
                                             Sharla.
Perez, Leah..................      1164     Perez, Lilia...       1164
Perez, Martha................      1167     Perez, Veronica       1167
Perkins, Joseph..............      1167     Perkins, Karen.       1167
Perkins, Marie...............      1168     Pernyeszi, Joe.       1168
Pero, Joseph.................      1168     Perrette,             1168
                                             Julien Yannick.
Perricelli, Claire...........      1168     Perrin, Anne...       1168
Perrine, Nancy...............      1168     Perry, Heath...       1169
Perry, Linda.................      1169     Peters, Nancy..       1169
Petersen, Haley..............      1169     Petersen, Kelly       1170
Petersen, Sarah..............      1170     Peterson,             1170
                                             Andrew.
Peterson, Elizabeth..........      1170     Peterson,             1171
                                             Heather.
Peterson, Kelly..............      1171     Peterson, Lauri       1171
Peterson, Linda (CA).........      1171     Peterson, Linda       1171
                                             (OH).
Peterson, Mark...............      1172     Peterson,             1172
                                             Ronald.
Petruszak, Alexander.........      1172     Petty, Carlene.       1173
Pham, Irene..................      1173     Phelan, William       1173
Phelps, Benneth..............      1173     Phelps, Luellen       1174
Phillips, James..............      1174     Phillips, Susan       1174
Phinney, Cynthia.............      1174     Phipps, Holly..       1174
Phipps, JoAnna M.............      1175     Phipps, Leana..       1175
Phyle, Chad..................      1175     Picciuca,             1175
                                             Sebastiano.
Pickard-Richardson, Jana.....      1175     Picton, Rebecca       1176
Pieper, Christine............      1176     Pierce, Megan..       1176
Pierret, Dorothy.............      1176     Piersimoni,           1177
                                             Anna Marie.
Pieslak, Suzanna.............      1177     Pietro, Cheryl.       1177
Pile, Edward.................      1177     Pilon, Killeen.       1177
Pincince, Lucille............      1177     Pineda, Melisa.       1177
Pinedo, Damaris..............      1178     Pings, Martha..       1178
Pinkham, Carolyn.............      1178     Pinsky,               1178
                                             Charlotte.
Pintar, Matthew..............      1178     Pip, Reynolds..       1179
Piper-McClure, Amanda........      1179     Pisano, Tony...       1179
Pitcher, Patti...............      1179     Pitts, Cathie..       1179
Pizarro, Judy................      1179     Pjesky, Hope...       1180
Plain, Michelle..............      1180     Plaisance,            1180
                                             Desiree.
Plourde, Monica..............      1181     Plumb, Kate....       1181
Plummer, Donna...............      1181     Pocius, Felicia       1181
Podoll, Theresa..............      1182     Pohlschneider,        1182
                                             Margie.
Pokorny, Jeff................      1182     Poliquin,             1182
                                             Martha.
Pollard, Lisa................      1182     Pomeroy, Alaina       1183
Pomrenke, M.D., M.P.H.,            1198     Pontillo, Louis       1198
 M.A.T.S., Stefan.
Poole, Carol.................      1198     Pope, Anne.....       1198
Popolow, Robert..............      1198     Porter, Donald        1198
                                             J..
Porter, Karen................      1198     Porter, Maya...       1199
Portman, Anne................      1199     Posever,              1199
                                             Natalie.
Posey, Edye..................      1199     Potamites,            1200
                                             Katherine.
Potter, Erin.................      1200     Potter, Nancy..       1200
Potts, Clifton...............      1200     Poulsen,              1200
                                             Rebecca.
Powell, Michael..............      1200     Powell, William       1200
Powers, Ann..................      1201     Powers, Bruce..       1201
Powers, Heather..............      1201     Powers, Janet..       1202
Powis, Robin.................      1202     Poyant, Andrew.       1202
Prado, Jim...................      1202     Prather, Beth..       1202
Pratt, Christine.............      1202     Praus, Shannah.       1203
Pravda, Stewart..............      1203     Precopio, Donna       1203
Preston, Will................      1203     Price, Caitlin.       1203
Price, Jennifer..............      1203     Price, Ph.D.,         1204
                                             John.
Price, Judy..................      1204     Price, Kent....       1204
Price, Laurie................      1204     Price, Traer...       1204
Price, Wayne.................      1205     Priebe,               1205
                                             Elizabeth.
Priest, Wanda................      1205     Prileson, Eric.       1205
Prillaman, H. Bruce..........      1206     Prindle, Pamela       1206
Pringle, Bruce...............      1206     Pringle, Stacy.       1206
Prinz, Johni.................      1206     Pritchard,            1207
                                             Gralin.
Probasco, Brenda P...........      1207     Probst, Kelly..       1207
Prochaska, Tom...............      1207     Proctor, Chris.       1207
Proctor, Geraldine...........      1208     Proctor, John..       1208
Proffitt, Dennis.............      1208     Proffitt, Robin       1208
Propster, Diane..............      1208     Public, Jean...       1208
Puch, Debbie.................      1209     Puckett, Susan        1209
                                             Lang.
Puente, Martha...............      1209     Pugh, Rene.....       1209
Puhl, Debbie.................      1209     Purdon, Andrea.       1210
Putnam, Barbara..............      1210     Putz, Ph.D.,          1210
                                             Herbert.
Pyle, Pennie.................      1211     Quaid, Charlie.       1211
Quattro, Susanne.............      1211     Quattrochi,           1211
                                             Gina.
Quattrochi, Lisa.............      1211     Quest, M.A.....       1212
Quick, James.................      1212     Quillio, Susan.       1212
Quinn, Jennifer..............      1212     Quintal, Laurie       1212
Quirk, M.D., Ninu-Alexandri..      1212     R. de Miranda,        1213
                                             Ph.D., Yvonne.
Raabe, Seth..................      1213     Rabey, John....       1213
Rabkin, Sarah................      1213     Race, Adam.....       1214
Rachels, Raymur..............      1214     Rackley, Sean..       1214
Racoosin, Esther.............      1214     Radei, Alison..       1214
Rahbari, Carol...............      1215     Rains, Pat.....       1215
Raiser, A. Lynn..............      1215     Raisor, Kelly..       1215
Rajagopalan, Ravi............      1215     Raker, Suzanna.       1215
Rakowski, Katherine..........      1216     Ramaci, Lisa...       1216
Ramaker, Julianne............      1216     Ramirez, Maja..       1216
Ramos, Patricia..............      1216     Ramsay, Sylvia.       1217
Ramsburgh, John..............      1217     Ranauro,              1217
                                             Brandon.
Rand, Katherine..............      1217     Randall, Eliza.       1218
Randallo, Crystal............      1218     Ranney, Earl...       1218
Rapp, Neville................      1218     Raschke, Lisa..       1219
Raskin Rosenthal, Judith.....      1219     Rather, Sarah..       1219
Ratliff, Donna...............      1219     Raulerson,            1219
                                             Teresa.
Rawlings, Maureen............      1220     Ray, Cindy.....       1220
Ray, Darryl..................      1220     Ray, Hilary....       1220
Ray, Katrina.................      1220     Ray, Linda.....       1220
Ray, Susan...................      1221     Ray, Turner....       1221
Razza, Carl..................      1221     Reardib,              1221
                                             Patricia.
Reavey, Sandy................      1221     Record, Laura..       1221
Redding, Carmen..............      1222     Redig, Ann.....       1222
Redig, Robert & Kathy........      1222     Redman, Monique       1222
Redwine, Marilyn.............      1223     Reeck, Nancy...       1223
Reed, Anita..................      1223     Reed, Geoffrey.       1223
Reed, Jane...................      1223     Reed, Lois.....       1223
Reed, Rebecca................      1224     Reed, Robin....       1224
Reers, Michelle..............      1224     Rehorn, Rebecca       1224
Reichert, Christine..........      1225     Reid, Debra....       1225
Reida, Audrey................      1225     Reidy, Thomas..       1225
Reiff, Cheryl................      1225     Reiland, Jeanne       1225
Reilingh, Nick...............      1226     Reilly, Donna         1226
                                             Segreti.
Reilly, Erica................      1226     Reilly, Joanne.       1226
Reis, Jackie.................      1226     Reis, Matthew..       1226
Reischman, Shirley...........      1227     Rempas, Amy....       1227
Renea, Stephanie.............      1227     Rennacker, Ann.       1227
Repp, Sharon.................      1227     Respalje, Terri       1228
Rex, Linda...................      1228     Reyher, David..       1228
Reynaldo, Pilar..............      1228     Reynolds, Gary.       1228
Reynolds, Lisa...............      1228     Reynolds, Peter       1229
Rhea, Abagail................      1229     Rhoads,               1229
                                             Jennifer.
Rhoads, Kevin................      1229     Rhodes, Harry..       1229
Rhule, Dalia.................      1230     Riccio, Frank..       1230
Rice, David..................      1230     Rice, Ronda....       1230
Richard, Andrus..............      1231     Richard, Lester       1231
Richards, Vanessa............      1231     Richardson,           1231
                                             Debra.
Richardson, John.............      1231     Richardson,           1232
                                             Kevin.
Richel, Tamara...............      1232     Richison, Susan       1232
Richland, Shea...............      1232     Richmond,             1233
                                             Eileen.
Riddell, Sally...............      1233     Ridgard, Andrea       1233
Riersen, Louise..............      1234     Ries, Daniel...       1234
Ries, Shelley................      1234     Rietmann, Marie       1234
Riggins, Patricia............      1234     Riley, David...       1234
Riley, Diane.................      1235     Riley, Michelle       1237
Riley, Russell...............      1237     Riley, Pys. D.,       1238
                                             Inger K..
Rion, Michael................      1238     Rist, Julie....       1238
Ritchie, Steven..............      1238     Ritland,              1239
                                             Jessica.
Ritter, Cathy................      1239     Rittmeyer,            1239
                                             Wendy.
Ritzau, Kristin..............      1239     Rizoli,               1240
                                             Constance.
Robben, Carol................      1240     Robbins, Boz...       1240
Roberson, Ruth...............      1240     Roberson,             1240
                                             William.
Robert, Lisa.................      1241     Roberts, Dawn..       1241
Roberts, Dianne..............      1241     Roberts,              1241
                                             Katherine.
Roberts, Mason...............      1241     Roberts, Rachel       1242
Roberts, Teresa..............      1242     Robertson,            1242
                                             Patricia.
Robin, Vicki.................      1242     Robins, Rick...       1244
Robinson, Allie..............      1244     Robinson, Carol       1244
Robinson, D..................      1244     Robinson,             1245
                                             Frances.
Robinson, Gail...............      1245     Robinson,             1245
                                             Jeremiah.
Robinson, Kathleen...........      1245     Robinson,             1245
                                             Luetta.
Robinson, Lynn...............      1246     Robinson, Sean.       1246
Rocap, Kendra................      1247     Roche, Abby....       1247
Roche, Ken...................      1247     Roden, Greg....       1247
Rodgers, Laura...............      1247     Rodgers, Martha       1248
Rodgers-Clark, Bethany.......      1248     Rodman, Heather       1248
Rodriguez, Michael...........      1248     Roeck-                1248
                                             Akarkarasu,
                                             Iderah.
Roewe, Clarissa..............      1248     Rogers, Brianna       1249
Rogers, Terry................      1249     Rogers, Thomas.       1249
Rogowsky, Nina...............      1249     Roh, Kwanho....       1249
Rohrer, Cheryl...............      1250     Rojack, Carmen.       1250
Roland, Tanya................      1250     Roller, Sheryl.       1250
Roman, Nora..................      1250     Romano, Juliet.       1250
Romans, Lynne................      1251     Rome, Jonathan.       1251
Romero, Christina............      1251     Ronk, Anna.....       1251
Rontal, Howard...............      1251     Rooth, Thomas..       1251
Rose, Ammathyst..............      1252     Rose, Gail.....       1252
Rose, Hollis.................      1252     Rose, Sarah....       1252
Rose, Sheryl.................      1253     Rose, Victoria.       1253
Rose, M.D., Lawrence.........      1253     Rosen, Adele...       1253
Rosen, Andrea................      1253     Rosen, Barbara.       1253
Rosenberg, Diane.............      1254     Rosenberg, Jeff       1254
Rosenberg, Lisa..............      1254     Rosenthal,            1255
                                             Eleanor.
Rosenthal, Gregory...........      1255     Rosin, Carla...       1255
Ross, Angela.................      1256     Ross, Christy..       1256
Ross, Douglas................      1256     Ross, Jodi.....       1257
Ross, Ollie..................      1257     Ross, Robert...       1257
Rossi, Karen.................      1257     Roth, J. Ronald       1257
Roth, Stan...................      1258     Rothrock,             1258
                                             Janice.
Rothstein, Jennifer..........      1258     Rougeau, Pat...       1258
Rowan, Cathy.................      1259     Rowan, Thomas..       1259
Rowin, Sophia................      1259     Rowland, Karen.       1259
Rowlett, Kimberly............      1259     Rowley, Genny..       1260
Rowley, Marjorie.............      1260     Roy, Monika....       1260
Roy, Pam.....................      1260     Royal, Sharon..       1261
Royse-Flora, Roxanne.........      1261     Rubin, Deborah.       1261
Rubin, Mary-Beth.............      1262     Rubin, Melissa.       1262
Rubio, Gail..................      1262     Rubley, Ruby...       1262
Ruck, Claudia................      1262     Rucker, Kelly..       1262
Rudiger, Donna...............      1263     Rudnick, Luan..       1263
Rudnicki, Susan..............      1263     Rueb, John.....       1263
Ruf, Jonathan................      1263     Ruff, Victoria.       1264
Rufo, Lisa...................      1264     Ruiz, Chris....       1264
Rule, Colter.................      1264     Rumson, Rachel        1264
                                             Lyn.
Runnels, Marye...............      1265     Running, Shelly       1265
Runyan, Shannon & Kim........      1265     Ruprecht, John.       1266
Rush, Mackenzie..............      1266     Russ, Jeremy...       1266
Russ, Mark...................      1267     Russell, James.       1267
Russell, Julia...............      1267     Russell, Trevor       1267
Ryan, Anne...................      1268     Ryan, Donna....       1268
Ryan, Kate...................      1268     Ryan, Peter....       1268
Ryckebusch, Francoise........      1268     Saarikoski,           1268
                                             Kimberly.
Sabatini, Theresa............      1269     Sabol, Paul....       1269
Sackler, Laurie..............      1269     Sadler, Jim....       1269
Sadowsky, Jesse..............      1270     Sager, Thomas..       1270
Saito, Don...................      1270     Sakala, Steve..       1270
Salamon, Mark................      1271     Salans, Josh...       1271
Salazat, RayAnn..............      1271     Saleem, Teresa.       1272
Salomon, Mary................      1272     Salus, Penny...       1272
Salvage, Dr. Joyce...........      1272     Salz, Deborah..       1272
Sambor, Daniel...............      1273     Sample,               1273
                                             Christine.
Sampson, Kristina............      1273     Sampson, Rhys..       1273
Samuelson, Diane.............      1273     Sanborn,              1274
                                             Jennifer.
Sanchez, Marta...............      1274     Sandeen, Judith       1274
Sandel, Morris...............      1274     Sanders,              1274
                                             Jennifer.
Sanders, Julie...............      1275     Sanders,              1275
                                             Kendall.
Sangster, Wayne..............      1275     SanMiguel,            1275
                                             Dagny.
Santora, Sarah...............      1276     Santos, Janice.       1276
Santos, Omar.................      1276     Saravia, Jimena       1276
Sarbiewski, Stephen..........      1277     Sarnat, Marlene       1277
Sarraille, Marijeanne........      1277     Sarrazin, Tara.       1277
Sartor, Michelle.............      1277     Sasha, San Malo       1278
Satterwhite, Brian...........      1278     Sauer, Brian...       1278
Sauerhagen, Eric.............      1278     Saunders, Lois.       1278
Savarese, Christine..........      1279     Sawdon,               1279
                                             Rosemarie.
Sawtell, Cynthia.............      1279     Sawyer, Caryl..       1279
Saxton, Martha...............      1279     Saylor, Joni...       1279
Scalera, Lindsey.............      1279     Scanlon,              1281
                                             Deirdra.
Schad, Michael...............      1281     Schantz,              1281
                                             Cynthia.
Schechter, Alea..............      1281     Scheffler,            1282
                                             Bruno.
Schefter, Ken................      1282     Scheidler,            1282
                                             Jacob.
Schein, Donna................      1282     Schell, Sue....       1283
Schenkelberg, Doug...........      1283     Scherer, Amy...       1284
Scherick, Carol..............      1284     Schermer,             1284
                                             Robert.
Schiewe, Patricia............      1284     Schilk, Valerie       1284
Schiller, Lisa...............      1285     Schilling,            1285
                                             Francis.
Schlaff, Jarret..............      1285     Schlangen,            1285
                                             Alvin.
Schmall, Eric................      1285     Schmalstieg,          1285
                                             Linda A..
Schmidt, Donald..............      1286     Schmidt, Megan.       1286
Schmitt, Beth................      1286     Schmitt, James.       1286
Schmitz, Kristen.............      1286     Schneider,            1286
                                             David.
Schneider, Richard...........      1287     Schneiderhan,         1287
                                             Kelly.
Schoech, Dick................      1287     Schoenfeld,           1287
                                             John.
Schofield, Meg...............      1287     Schofield,            1287
                                             Stephen.
Scholes, Aaron...............      1287     Schonbeck, Mark       1288
Schoneman, Amy...............      1293     Schorr, Meagan.       1294
Schrack, Diane...............      1294     Schraven,             1294
                                             Hendrikus.
Schriebman, Judy.............      1295     Schroeder, Jack       1295
Schroeder, Theresa...........      1295     Schuch, Andrew.       1295
Schultz, Jennifer............      1295     Schwalb, Cindy.       1296
Schwartz, Amy................      1296     Schwartz,             1296
                                             Burton.
Schwartz, Elizabeth..........      1296     Schwartz, Jeff.       1296
Schwartz, Julie..............      1296     Schwartzenhauer       1297
                                             , Robbin.
Schwartzman, Tamsen..........      1297     Schwarz, Penny.       1297
Schwarzlander, Patricia......      1297     Schweizer,            1298
                                             Raphael.
Scofield, Shari..............      1298     Scott, Barbara.       1298
Scott, Cameron...............      1298     Scott, D.......       1298
Scott, Emily.................      1298     Scott, K.......       1298
Scott, Sherri................      1299     Scotto, James..       1299
Scrimenti, David.............      1300     Scripter, Marla       1300
                                             L. & Morris D..
Scudder, T...................      1300     Seales, Jessica       1300
Searle, Newell...............      1300     Sears, Cindy...       1302
Seaton, Anton................      1302     Seaver, Linda..       1302
Secretan, Lance..............      1302     Sedgwick, Sarah       1302
Seidel, Karl.................      1303     Seim, Michelle.       1303
Seiniger, Breck..............      1303     Seiz, Debra....       1303
Selby, Joy...................      1303     Sellars,              1304
                                             Stefanie.
Serra, Gabrielle.............      1304     Serveson, Susan       1306
Sessions, Robert.............      1306     Sessions,             1306
                                             Sharon.
Seth, Savita.................      1306     Sethi, Ankur...       1306
Sexton, Mike.................      1306     Seyferlich,           1307
                                             Helen.
Shaber, Anne.................      1307     Shaber, Joel...       1307
Shad, Conrad.................      1307     Shaffer,              1307
                                             William.
Shamley, Kendra..............      1307     Shanks, Linda..       1307
Shapiro, Sara................      1308     Sharp, Cynthia.       1308
Sharpe, Dora.................      1308     Sharpe, Michael       1308
Sharry, Jean.................      1309     Shaub, George..       1309
Shaub, Kimberly..............      1309     Shaver, Mel....       1310
Shaw, Justin.................      1310     Shaw, Norman...       1310
Shaw, S......................      1310     Shea, Shannon..       1310
Shearer, N. Lillian..........      1311     Shearon, Lynn..       1311
Sheeley, Harriet.............      1311     Sheely, Ted....       1311
Sheer, Stephen...............      1313     Sheffield, John       1313
                                             & Jane.
Sheldrew, Michael............      1313     Shelley,              1314
                                             Kathleen.
Shelly, Charles..............      1314     Shelton, David.       1314
Shelton, Melissa.............      1314     Shepard,              1315
                                             Marlene.
Sheresh, Richard.............      1315     Sherman,              1315
                                             Dorothy.
Sherman, Valerie.............      1315     Sherrill, Inga.       1315
Sheskin, Felisa..............      1315     Shields, Alice.       1316
Shin, Doorae.................      1316     Shindel, Marci.       1316
Shiner, Elaine...............      1316     Shoemaker,            1317
                                             Diane.
Shoemaker, Dorea.............      1318     Shollenberger,        1318
                                             Lori.
Shook, Cindy.................      1318     Shore, Billy...       1318
Shore, Michael...............      1320     Shortness,            1320
                                             Ernie.
Shottenhamer, Carol Lynne....      1321     Shoup,                1321
                                             Cassandra.
Shropshire, Lee..............      1321     Shudde, Gerry..       1321
Shumaker, Anita..............      1322     Shumsky, Sheryl       1322
Shunn, Brenda................      1322     Shuster, Anne..       1322
Shuster, Diana...............      1322     Shuster, Helen.       1323
Shute, Janet M...............      1323     Shyshka, Mary..       1324
Sial, Aisha..................      1324     Sibley, Kathryn       1324
Sicard, Kevin Gershom........      1324     Siebach, Sarah.       1325
Siebert, Arlie...............      1325     Siebert, Dan...       1326
Sieberts, Heidi..............      1326     Siegelbaum,           1326
                                             Heidi.
Sieger, Anja.................      1326     Sigmans, Dan...       1326
Sigstedt, Ling...............      1327     Silber, Susan..       1327
Silberschmidt, Amy...........      1327     Silliman,             1327
                                             Thomas.
Silva, Patricia..............      1327     Silva, Sandra..       1327
Silverman, Louise............      1328     Simkanin,             1328
                                             Dorothy.
Simmons, Connie..............      1328     Simmons,              1328
                                             Katrina.
Simmons, Keri J..............      1328     Simmons, Liz...       1329
Simms, Jeff..................      1329     Simoneaux, Lois       1329
Simonson, Audrey.............      1329     Simonson,             1329
                                             Michelle.
Simpkins, Dulcey.............      1330     Simpliciano,          1330
                                             James.
Simpson, Heather.............      1330     Simpson,              1330
                                             Meaghan.
Sims, Gina...................      1331     Sims, Sandra...       1331
Sims, Sascha.................      1331     Singer, Andrew.       1332
Singlestad, Kristy...........      1332     Sipe, Joy......       1332
Sittle, Cheryl...............      1332     Sively, Susan..       1333
Siverson, Nels...............      1333     Sketch, Mary...       1333
Skinner, Jennifer............      1333     Skjersaa, Su...       1333
Sklar, David.................      1334     Skog, Judy.....       1334
Skrdlant, Lindsey............      1334     Skybak,               1334
                                             Courtney.
Slabach, Ruth................      1334     Sladek,               1335
                                             Marianne.
Slayton, Deborah.............      1335     Sloane, Pam....       1335
Slobod, Ann..................      1335     Slocum, Ceciley       1335
Slomovits, Helen.............      1336     Slotnick, Quinn       1336
Slouthworth, William.........      1336     Slugg, Roger...       1336
Small, Sally.................      1336     Small, R.N.,          1337
                                             Marya.
Smith, C.M.S., Al............      1337     Smith, Barton..       1338
Smith, Bruce.................      1338     Smith, Carolyn.       1338
Smith, Cecily................      1338     Smith,                1339
                                             Christine.
Smith, Heather...............      1339     Smith, Jan.....       1339
Smith, Jeremy................      1340     Smith, Julianne       1340
Smith, Julie (WV)............      1341     Smith, Julie          1341
                                             (UT).
Smith, Kathy.................      1341     Smith, Kristine       1341
Smith, Laura.................      1342     Smith, Lee.....       1342
Smith, Leilani...............      1342     Smith, LeVar...       1342
Smith, Lori..................      1343     Smith, Lucy....       1343
Smith, Madleine..............      1343     Smith, Mary....       1343
Smith, Michele...............      1343     Smith, Polly...       1343
Smith, Robert A..............      1344     Smith, Sandy...       1346
Smith, Sheila................      1346     Smith, Shelby..       1346
Smith, Stacie................      1347     Smith, Stefanie       1347
Smith, Terra.................      1348     Smith, Theresa.       1348
Smith, Traci.................      1348     Smith, Tracy...       1348
Smith, Victor................      1348     Smith, Ph.D.,         1348
                                             Patryce A..
Smollett, Molly..............      1349     Snader, Gregory       1349
Snedic, Ruth.................      1349     Snider, William       1349
Snipes-Wells, Susan..........      1349     Snively, James.       1350
Snodgrass, Jerry.............      1350     Snow, Janet R..       1351
Snyder, Ann..................      1351     Snyder, Denise.       1351
Snyder, Patrick..............      1351     Sobczyk,              1352
                                             Patricia.
Sok, Stephanie...............      1352     Solomon, Linda.       1352
Sommers, Samantha............      1352     Soren, Joanna..       1352
Sossong, Mary................      1352     Sotelo, Roxanne       1352
Southard, Michael............      1353     Souza, David...       1353
Spangler, Lyn................      1353     Sparks, Suanne.       1353
Spear, R. Scott..............      1353     Speers, Laura..       1354
Speirs, Juanita..............      1354     Spence, Martha.       1355
Spencer, Brenda..............      1355     Spencer,              1355
                                             Melissa.
Spica, Sarah.................      1355     Spicer,               1355
                                             Patricia.
Spier, Carolyn...............      1355     Spillane,             1356
                                             Melanie.
Spinazzola, Linda............      1356     Spinks, Gayle..       1356
Spires, Alodie...............      1356     Spitaletto,           1356
                                             Katie.
Spitalnik, Meredith..........      1357     Spitz, Sarah...       1357
Spor, Linnie.................      1357     Spoto, Cathy...       1357
Spottiswoode, Michael........      1357     Sprague, Sarah.       1358
Spring, Tai..................      1358     Sprinkle, Judy.       1358
Srinivasa, Kunuthur..........      1358     St. Clair, Eric       1358
St. Clair, Janice............      1358     St. Pierre,           1359
                                             Marguerite.
Staas, Bonita................      1359     Stalter,              1359
                                             Matthew.
Stamps, Judith...............      1359     Stancil, Jeanne       1359
Stanley, Alan................      1360     Stanley, Sharon       1360
Stapler, Suzanne.............      1360     Stark, Karen...       1360
Starke, Dawn.................      1360     Starkman,             1361
                                             Phyllis.
Starr, Georgi................      1361     Starrett,             1361
                                             Evelynn.
Starzel, Mary Beth...........      1361     Stathatos,            1361
                                             Denise.
Stauffer, Michael............      1361     Stearns, Judy..       1361
Stebner, Michael.............      1362     Stedwell, Kegan       1362
Steger, Ralph................      1362     Steichen,             1362
                                             Florence.
Stein, Dr. Karen.............      1362     Steinberg, Anne       1363
Steinberger, Jillian.........      1363     Steiner, Steve.       1364
Steinfeld, Caroline..........      1364     Steinkamp,            1364
                                             Suzanne.
Stelse, Val..................      1364     Stenlund,             1365
                                             DeeAnn.
Stephan, Chris...............      1365     Stephen, David.       1365
Stephens, Gail...............      1365     Stephens, Greg.       1365
Stephenson, Laura............      1366     Stergis, Sharon       1366
Stevenson, Jan...............      1366     Stevenson, Jane       1366
Steward, Scott...............      1366     Stewart,              1367
                                             Barbara.
Stewart, Cynthia.............      1367     Stewart, Donna.       1367
Stewart, Lisa................      1367     Stiegmeier,           1367
                                             Donna.
Stillman, Ann................      1368     Stimac, Michael       1368
Stireman-Beyer, Alisha.......      1368     Stirling, Jenny       1368
Stith, Shirley...............      1369     Stockdale, Ann.       1369
Stockwell, Dr. Sarah.........      1369     Stokes, Marilyn       1369
Stolar, Sarah................      1369     Stoley, Janet..       1370
Stombock, Janora.............      1370     Stone, Beverly.       1370
Stone, Karen.................      1371     Stone, Mary....       1371
Stone, Michelle..............      1371     Stoneburner,          1371
                                             Carol.
Stones, Chuck................      1371     Stopek, Sara...       1372
Stopler, Marina..............      1372     Storlazzi             1373
                                             Torpey, Susan.
Storm, Michael...............      1373     Stormont, Kayla       1373
Stout, Mary Jo...............      1373     Stoute, Karen..       1373
Straley, Christine...........      1374     Strand, Sally..       1374
Strangio, Linda..............      1374     Straub Vorse,         1374
                                             Lindsay M..
Stredny, Diane...............      1374     Streitburger,         1375
                                             Jan.
Strle, Andrea................      1375     Strombom,             1375
                                             Amanda.
Strother, Christina..........      1375     Stubbe, Frieda.       1375
Stuckey, Melissa.............      1375     Sturdevant,           1376
                                             Jason.
Sturm, Jordan................      1376     Styrcula,             1376
                                             Kathleen.
Sudduth, Suzanne.............      1376     Suever, Mike...       1376
Sugarman, Lor................      1377     Sugarwala,            1378
                                             Laura.
Sukow, Gretchen..............      1378     Sullivan, B....       1378
Sullivan, Carol..............      1378     Sullivan,             1378
                                             Colleen.
Sullivan, Dr. Patrick........      1378     Sullivan,             1378
                                             Eileen.
Sullivan, Elaine.............      1379     Sullivan, Terry       1379
Sullivan, Thomas.............      1379     Sullivan, M.D.,       1379
                                             Robert.
Summerfelt, Robert...........      1379     Summers, Dakota       1380
Sumner, Jennifer.............      1380     Sundance,             1380
                                             Juniper.
Sundell-Guy, Cindy...........      1381     Sunderland,           1381
                                             Violet.
Suplee, Judy.................      1381     Supowitz, Terri       1381
Susan, Knose.................      1381     Suter, Nancy...       1382
Sutton, Beverley.............      1382     Sutton, Chelsea       1382
Sutton, Ellyn................      1382     Svirsky, Ph.D.,       1382
                                             Janet.
Svitko, Lin..................      1383     Swain, Edward..       1383
Swanson, Elaine..............      1383     Swanson, Joe...       1383
Swarthout, Elizabeth.........      1384     Swearingen,           1384
                                             Margaret.
Sweeney, Shelly..............      1384     Sweeny, Peter..       1384
Swegan, Janice...............      1384     Swicegood, Jane       1384
Swidler, Lawrence............      1385     Swift, Joan....       1385
Swinford, Sheila.............      1385     Switzer, Sharon       1385
Sword, Carol.................      1385     Sytsma, Emily..       1386
Sytwu, Renee.................      1386     Szamosi, Anna..       1386
Szymkowiak, Shannon..........      1386     Szymkowicz,           1386
                                             Raymond.
Tabili, Paul.................      1387     Tackett,              1387
                                             Benjamin.
Tackett, Paula...............      1387     Tacon, Juliette       1387
Takakjian, Elizaabeth........      1387     Takayama, Kai..       1388
Tallman, Viviane.............      1388     Tam, Lisa......       1388
Tanata, Nicole...............      1388     Tankersley,           1389
                                             Scott.
Tant, Christina..............      1389     Tapp, Yvette...       1389
Tarbox, Margaret E...........      1389     Tarlton, Bianca       1389
Tartaglia, Barbara...........      1390     Tarttier,             1390
                                             Bonnie.
Tate, Beverly................      1390     Tavoularis,           1391
                                             Melindria.
Taylor, Constance............      1391     Taylor, David..       1391
Taylor, Dean.................      1391     Taylor, Derek..       1391
Taylor, James................      1392     Taylor, Joshua.       1392
Taylor, Judy.................      1392     Taylor, Karen..       1392
Taylor, Kirk.................      1392     Taylor, Melvin.       1393
Taylor, Patricia.............      1393     Taylor, Ronni..       1393
Teeter, Martha...............      1393     Teixiera, John.       1393
Teller, Amy..................      1394     Tellez, Frank..       1394
Tenaglio, Robert.............      1395     Tengenber,            1395
                                             Myrtle.
Teninty, Sasha...............      1395     Terhaar, Tim...       1395
Terry, Clara.................      1395     Terry, John....       1395
Terziotti, Annette...........      1396     Tesch, Anna....       1396
Testa, Joseph................      1396     Tevelow, Carla.       1397
Tevlin, Michael..............      1397     Tewksbury,            1398
                                             Arden.
Thacker, Cheryl..............      1420     Thaw, Karen....       1420
Thayer, Gary.................      1420     Thema, Linda...       1420
Theodoru, George.............      1421     Theoharris,           1421
                                             Michele.
Theresa, Daley...............      1421     Thew, Janet....       1421
Thill, Randy.................      1421     Thistlethwaite,       1421
                                             Rebecca.
Thomas, Barbara W............      1422     Thomas, Ella...       1422
Thomas, Margaret.............      1422     Thomas, Mary...       1422
Thomas, Robert and Lillian...      1423     Thomason, Mary.       1423
Thompson, Ben................      1423     Thompson, Cindy       1423
Thompson, Colleen............      1423     Thompson, Gayle       1424
Thompson, Heather............      1424     Thompson, James       1424
Thompson, Linda..............      1424     Thompson, Scott       1424
Thompson, Tara...............      1424     Thompson-Bull,        1425
                                             Myra.
Thoms, Michelle..............      1425     Thor, D. Iris..       1425
Thorman, Tess................      1425     Thornburg,            1425
                                             Melanie.
Thornton, Sara...............      1426     Thrash, Deborah       1426
Thurston, Lynn...............      1426     Tibbits, Clark.       1426
Tidwell, Jackie..............      1427     Tiers, Sarah...       1427
Tiger, David.................      1427     Tildahl, Karla        1427
                                             and Brent.
Tillman, Terry...............      1427     Timbo, Aaron...       1427
Timer, Heidi.................      1427     Ting, Samuel...       1428
Tinkham, Nicole..............      1428     Tippens,              1428
                                             Rebecca.
Tirben, Helen................      1428     Titus, Ann.....       1429
Titus, Kathryn...............      1429     Tobias, Janet..       1429
Tobias, John.................      1429     Tobin, Cynthia.       1429
Todd, Alice..................      1429     Tokuda, Jasmine       1429
Tolley, Diane................      1430     Toman, Julie...       1430
Tomczyszyn, Michael..........      1430     Tomei, Barbara.       1430
Tonn, David..................      1430     Toolan,               1431
                                             Patricia.
Tormoen, Sandra..............      1431     Tosado, Stacey.       1431
Toshalis, Barbara............      1431     Tovey, Kathleen       1431
Townsend, Marjorie...........      1432     Townsend, Scott       1432
Toy, Alaric..................      1432     Tracey, Carmen.       1432
Tracy, Ellen.................      1433     Trafford, Susan       1433
Tragesser, Sharon............      1433     Tredeau, Rabia.       1433
Trenkamp, Gina...............      1433     Trice, Patricia       1433
Trick, Daniel................      1434     Trione, Kristy.       1434
Tripi, John..................      1434     Troiano,              1434
                                             Melissa.
Trotchie, Marcia.............      1434     Trott, Connor..       1435
Trotter, David Wesley........      1435     Trotter,              1436
                                             Kathleen.
Trotter, Jr., Thomas.........      1436     Trueblood,            1436
                                             Molly.
Truempy, Thomas..............      1437     Truitt, Darla..       1437
Trumpp, Leon.................      1437     Trupin, Joel...       1437
Tschaggeny, Camille..........      1437     Tubbs, Ann.....       1438
Tuccillo, Christina..........      1438     Tuck, Frederick       1438
Tucker, Jeffrey..............      1438     Tugadi, Denise.       1438
Tuggey, Victoria.............      1438     Tumak, Laura...       1439
Turnbull, Susan..............      1439     Turner,               1439
                                             Christiane.
Turner, Joan.................      1439     Turner, Warren.       1439
Turzo, Laura.................      1440     Two-Hawks, Rob.       1440
Tybahl, Malin................      1440     Tyler, Julia...       1441
Tyler, Lorrayne..............      1441     Tyll, Laura....       1441
Tyroler, S...................      1441     Tyson, Linda...       1441
Ufkin, Jim...................      1442     Uhe, Shawn.....       1442
Ujcic, Susan.................      1442     Unilever North        1442
                                             America.
Unsworth, Nathan.............      1444     Urban,                1444
                                             Stephanie.
Usher, Sharon................      1444     Ustjanauskas,         1445
                                             Ada.
Uusitalo, Kelly..............      1445     Valdes, Imena..       1445
Valenzuela, Abel.............      1445     Valenzuela,           1445
                                             Jacqueline.
Valikov, Ena.................      1446     van de Kamp,          1446
                                             Alexandra.
Van Derrick, Michele.........      1446     van Dommelen,         1446
                                             Annelies.
Van Hooser, Tracey...........      1446     Van Leeuwen-          1447
                                             Vega, Lesley.
Van Loo, Ginny...............      1447     Van Sicklen,          1447
                                             Isabel.
Van Soelen, Eileen...........      1447     Van Twyver,           1447
                                             Patricia.
Van Valin, Mary..............      1447     VanArsdale,           1448
                                             Nike.
VanBuskirk, Patrician........      1448     Vance, Patricia       1448
Vandegriff, Paulette.........      1448     Vanden, Greg...       1448
Vandenberg, Noelle...........      1449     Vanderhoof,           1449
                                             Jane.
VanderKnyff, Rick............      1449     VanDerzee,            1450
                                             Susan.
Vann, Naomi..................      1450     Varellas, Barb.       1450
Varner, Veronica.............      1450     Varvaro,              1450
                                             Carmela.
Vasquez, Jennifer............      1451     Vaughan, Carey.       1451
Vaughan, Laura...............      1451     Vaughan, Susan.       1451
Vaughn, Z....................      1451     Veal, Jennifer.       1452
Veghte, George Arthur........      1452     Venner, Marie..       1452
Venturelli, Ava..............      1452     Venugopalan,          1452
                                             Vasan.
Verbeke, Joelle..............      1453     Vergo, Bobbie..       1453
Vergun, Pam, Rob, Miko, and        1453     Vermeulen, Mary       1454
 Isaac.
Vidrine, Emily...............      1454     Viele, Daniel..       1454
Vierra, Dawn.................      1454     Viggiano, Alyse       1454
Vignocchi, John..............      1455     Villadoniga,          1455
                                             Richard.
Villamil, R.N., Mirtha L.....      1455     Villasenor,           1455
                                             Teresita.
Villavicencio, Lara..........      1455     Vincent, Karen.       1455
Virtudazo, Angela............      1456     Vitale, Ben....       1456
Vitiello, Ellyse Adele.......      1456     Vitovitch, Ann.       1456
Vizzard, T...................      1456     Vogt, Susan....       1457
Volk, Kevin..................      1457     Volk, Rachel...       1457
Volker, Molly................      1457     Vollinger,            1457
                                             Pamela Rose.
Vollmer, Max.................      1458     von Borstel,          1458
                                             Carol.
von Duering, Rebecca.........      1458     Vorass, Melany.       1458
Vorosmarty, Laszlo...........      1459     Voss, Carol....       1459
Voss-Andreae, M.D., Ph.D.,         1459     Vranka, Janice.       1459
 Adriana.
Vrazel, Caroline.............      1460     Vresilovic,           1460
                                             Kelly.
W., Marilyn..................      1460     W., Trisha.....       1460
Wade, Frances................      1460     Wade, Nancy....       1461
Wadkins, Terry...............      1461     Waggle, James..       1461
Wagner, Deborah..............      1461     Wagner, Mark...       1461
Wagner, Michael..............      1462     Wagoner, Robyn.       1462
Wahler, David................      1462     Walas, Diane...       1462
Waldecker, Karen.............      1463     Waldorf,              1463
                                             Matthew.
Wales, Charlotte.............      1463     Walker, Jamie..       1463
Walker, Jenny................      1463     Walker, Joan...       1463
Walker, Lee..................      1464     Walker,               1464
                                             Margaret.
Walker, Medoh................      1464     Wall, Maureen..       1464
Wallace, Bob.................      1464     Wallace,              1464
                                             Brigitte and
                                             John.
Wallace, Garry...............      1465     Wallace, James.       1465
Wallace, Margaret............      1465     Wallace, Ryan..       1465
Wallace, Sondra..............      1465     Wallack, Annie.       1465
Waller, Kathy................      1466     Wallin,               1466
                                             Nicholas.
Wallof, Hunter...............      1466     Walls, Judy....       1466
Walls, Karen.................      1466     Walmsley, Dora.       1466
Walsh, Caitilin..............      1467     Walsh,                1467
                                             F.S.P.A.,
                                             Sister Julia.
Walsh, Mary..................      1467     Walsman, Betty        1467
                                             Lou.
Walters, Marie...............      1467     Waltke, Pat....       1468
Walton, Jon..................      1468     Walvatne, Gary.       1468
Walzem, Lisa.................      1468     Wang, Ruby.....       1468
Ward, Albert.................      1469     Ward, Linda....       1469
Ward, Terri..................      1469     Wardell, Gerard       1469
Ware, Nicholas...............      1470     Warfield, Jason       1470
Warner, Dr. Carole A.........      1470     Warner, Sara...       1470
Warner, Tim..................      1470     Warner Nyren,         1471
                                             Sheree.
Warren, Bess.................      1471     Warren, Brandi.       1471
Warren, Penny................      1471     Warren, Peter..       1471
Warren, Ruby.................      1471     Warren, Tomi...       1472
Warshawer, Nancy.............      1472     Washburn,             1472
                                             Thomas.
Wassell, Kelly...............      1472     Wasser, Brent..       1473
Waterman, Paula Squire.......      1474     Waters, Julia..       1474
Waters, Kristine.............      1474     Watkins, Carl..       1474
Watkins, Paul................      1474     Watson, Bruce..       1474
Watson, Jan..................      1475     Watson, Jeri...       1475
Watson, Julie................      1475     Watson, Marilyn       1475
Watson, Paul.................      1475     Watson, Phil...       1475
Watters, Ann.................      1476     Watts, Nancy...       1476
Waugh, Ann...................      1476     Way, Nathan....       1476
Waymire Rooks, Cathy.........      1476     Weathersby,           1476
                                             Lynn.
Weatherup, Cat...............      1477     Weaver, Andrew.       1477
Weaver, Becca................      1477     Weaver, David..       1477
Webb, Gene...................      1478     Webb, Patricia.       1478
Webster, Jeff................      1478     Webster, Kevin.       1478
Weckman, Shannon.............      1479     Weeden,               1479
                                             Jennifer.
Weems, Darrell...............      1479     Weems, Patricia       1479
Weems, Tyson.................      1480     Wehmeyer,             1480
                                             Melanie.
Weigel, Edna.................      1480     Weiler, Donna..       1480
Weinberg, Larry..............      1480     Weinberg,             1480
                                             Leslie.
Weiner, Margaret.............      1481     Weingeist,            1481
                                             Carol.
Weinshilboum, Sharyl.........      1481     Weintrob, Chris       1481
Weisberg, Anna...............      1482     Weisman, Jean..       1482
Weiss, Charlie...............      1482     Weiss, Gabriel.       1482
Weiss, Gregg.................      1483     Weiss, Rike....       1483
Weiss-Fried, Nancy...........      1483     Welch, Kerri...       1483
Welland, P...................      1483     Wellington,           1484
                                             Carly.
Wells, Barbara...............      1484     Wells, Collin..       1484
Wells, Dawn Anne.............      1484     Wells, Jim.....       1485
Wells, Rachel................      1485     Wells, Ruth....       1485
Wells, Shannon...............      1485     Welsh, Mark....       1485
Welters, Sjon................      1486     Wend, Silvia...       1486
Wensman, Edwin...............      1486     Wentworth,            1486
                                             Rebecca.
Wenzlaff, Frederick..........      1486     Wermes, Sylvia.       1486
Werneke, Angela..............      1486     Wesley, Charles       1487
Wesley, Janette..............      1487     West, Eric.....       1487
West, Heidi..................      1487     West, Norman...       1488
West, Penny..................      1488     West, Sybil....       1488
West, Virginia...............      1488     Westberry,            1488
                                             Serena.
Westman, Tara................      1488     Weston,               1489
                                             Cathleen.
Wetmore, Les.................      1489     Whatcott, Kim..       1489
Wheeler, Wilma...............      1489     Whitaker,             1489
                                             William.
White, Billie................      1490     White,                1490
                                             Christine.
White, Denise................      1490     White, Jan.....       1490
White, Jennifer..............      1490     White, John....       1490
White, Karen.................      1491     White, Kathleen       1491
White, Leigh.................      1491     White, Lisa....       1491
White, Marcia................      1491     White, Shawn...       1492
White, Valerie...............      1492     White, Victory.       1492
Whited, Tamara...............      1493     Whitehouse,           1493
                                             Alton.
Whitehouse, Judy.............      1493     Whiteley, Nikki       1493
Whiteman, Pauline............      1493     Whitford, Erin.       1493
Whiting-Broeder, Pamela......      1494     Whitlow, Glenn.       1494
Whitman, Art.................      1494     Whitson, Andrea       1495
Whitt, Michael...............      1495     Whitten, Diane.       1495
Whittington, Linda...........      1496     Whittredge,           1496
                                             Karen.
Wholey, Louise...............      1496     Wiant, Jean....       1496
Wiberg, Daniel...............      1496     Wick, Volinda..       1496
Wickham, Allen...............      1497     Wicks, Debra...       1497
Wickwire, Meg................      1497     Widhalm, Evelyn       1497
Wiercioch, John..............      1498     Wight,                1498
                                             Christine.
Wilbur, Ken..................      1498     Wilcher, Maya..       1498
Wilcox, Dorothy..............      1498     Wilde, Lynn....       1498
Wilder, Flo..................      1499     Wilds, Eric....       1499
Wilhite, Alan................      1499     Wilke, Gail....       1499
Wilkerson, Chalice...........      1499     Wilkes, Samuel.       1499
Wilkins, JoAnne..............      1500     Wilkins,              1500
                                             Shannon.
Wilkinson, Carol.............      1500     Wilkinson,            1500
                                             James.
Will, Julianne...............      1501     Willey, Chris..       1501
Williams, Alice..............      1501     Williams,             1501
                                             Amanda.
Williams, Bernadette.........      1501     Williams,             1502
                                             Beverly.
Williams, Carol..............      1502     Williams, Cyndy       1502
Williams, D., (NC)...........      1502     Williams, D.,         1502
                                             (CA).
Williams, Debora.............      1503     Williams, Elsie       1503
Williams, Emelie.............      1503     Williams, Jacki       1503
Williams, Jenna..............      1503     Williams, Kelly       1503
Williams, Penelope...........      1504     Williams,             1504
                                             Precious.
Williams, Sara...............      1504     Williams,             1504
                                             Victoria.
Williamson, Andrea...........      1504     Williamson,           1505
                                             Theresa.
Willis, Diane................      1505     Willis, Judith.       1505
Willis, Paul.................      1505     Willis, Penny..       1505
Willis, Walt.................      1505     Willits,              1506
                                             Margaret.
Willmore, Yolanda............      1506     Wills, Rachel..       1506
Willson, Sean................      1507     Wilson, Ariel..       1507
Wilson, Connie...............      1507     Wilson, David..       1507
Wilson, Deborah..............      1507     Wilson, Delilah       1508
Wilson, Devin................      1508     Wilson, Doris..       1508
Wilson, Dorothy..............      1508     Wilson, Jan....       1509
Wilson, Jane.................      1509     Wilson, Joan...       1509
Wilson, John.................      1509     Wilson, Lindsay       1509
Wilson, Marc.................      1509     Wilson, Martha.       1510
Wilson, Robert...............      1510     Wilson, Stacie.       1510
Wilson, Ward.................      1510     Wilson-Seppa,         1510
                                             Regina.
Winegar, Ann.................      1510     Wingate, Sally.       1511
Winholtz, Betty..............      1511     Winn, Geoff....       1511
Winn, Trisha.................      1511     Winter, Sandra.       1511
Winzig, Francis..............      1512     Wirth, Randy...       1512
Wirzba, Norman...............      1512     Wise, Ken......       1512
Wiseman, Jowanda.............      1512     Wisniewski,           1512
                                             Jeanette.
Wiszowaty, Walter............      1513     Withers, Lon...       1513
Witowski, Helen..............      1513     Witte, John....       1513
Woehrlin, Molly..............      1513     Woelk, Nikki...       1513
Wojciechowski, Patricia......      1514     Wolbach, Nancy.       1514
Wolf, Jillian................      1514     Wolf, Todd.....       1514
Wolfe, Alissa................      1514     Wolfe, Ashley..       1515
Wolff, Dennis C..............      1515     Wolkowitz, Lee.       1515
Wollenman, Tommy.............      1515     Wollman,              1517
                                             Barbara.
Wolverton, Susan.............      1517     Won, Laetitia..       1517
Wood, Christine..............      1517     Wood, Emmy.....       1518
Wood, Kristine...............      1518     Wood, Stephanie       1518
Woodard, Sarah...............      1518     Woodbury, Nola.       1518
Woodruff, Margaret...........      1518     Woods, Kenneth        1519
                                             A. ``Jack''.
Woods, Lora..................      1519     Woods, Tara....       1519
Woodward, Jill...............      1519     Wool, Joel.....       1519
Woolley, Barbara.............      1519     Wootan, Cathy..       1520
Wootten, Ruth................      1520     Worman, Jenny..       1520
Worstell, Jim................      1521     Wright, Denise.       1521
Wright, Jeff.................      1521     Wright, Jim....       1521
Wright, Miki.................      1521     Wright, Nadine.       1522
Wright, Nancy................      1522     Wright, Wynetta       1522
Wrightsman, Dwayne...........      1523     Wrinn, Chris...       1523
Wroblewski, Robert...........      1523     Wurm, Jane.....       1523
Wurster, James...............      1523     Wuthrich,             1524
                                             Katherine.
Wyatt, Jeffrey...............      1524     Wyberg, Bryan..       1524
Wyland, Nancy................      1524     Wyman, Lois....       1524
Wymola, Phillip & Hannah.....      1525     Wynn, Steveanna       1525
Wyre, Peedee.................      1525     Xakellis-             1525
                                             Chapman, Mary.
Xavier, Zita.................      1525     Yadav, Sangita.       1526
Yaffe, Artemas...............      1526     Yahnke, Sr.,          1526
                                             Tom.
Yamaguchi, Lydia.............      1526     Yamashiro, Kyo.       1526
Yanish, Rev. M...............      1527     Yarbrough, Finn       1527
Yarrobino, Erin..............      1527     Yates, Sharon..       1527
Yates, Virginia..............      1527     Yee, Alejandra.       1527
Yoches, Jeff.................      1528     Yoder, David...       1528
Yon, Jac.....................      1528     Yoshida, Yuki..       1528
Youness, Andrea..............      1528     Young, Anne....       1528
Young, Carol.................      1529     Young,                1529
                                             Catherine.
Young, Jennifer..............      1529     Young, Julie...       1529
Young, Kristofer.............      1529     Young, Marc....       1530
Young, Matthew...............      1530     Young, S.......       1530
Young, Sharon................      1530     Young, Thomas..       1531
Young-Holt, Carol Lou........      1531     Yousef, Saad...       1531
Yuen, Eleu...................      1532     Yuenger, Arthur       1532
Yurchuck, Ruth...............      1532     Zak, Julie.....       1532
Zambrano, Michelle...........      1532     Zampieri, Janet       1532
Zang, Keith..................      1532     Zapotocny,            1533
                                             Douglas.
Zastrow, Jesse...............      1533     Zavala, Debra..       1533
Zawacki, Jenna...............      1533     Zecca,                1533
                                             Christine.
Zehr, Judy...................      1533     Zeineddine,           1534
                                             Shaddy.
Zelko, Michael...............      1534     Zenker,               1534
                                             Elizabeth.
Zerbel, Janet................      1534     Zeri, Natalie..       1535
Zerilli, Jamie...............      1535     Zeutzius, David       1535
Zezima, Carolyn..............      1535     Zhang, Adrienne       1535
Ziegler, Jacqueline..........      1535     Ziek, Barbara..       1536
Zigich, Linda................      1537     Zimmmerman,           1538
                                             Adam.
Zimmerman, Audrey............      1538     Zimmerman,            1538
                                             Cindy.
Zimmerman, Joan..............      1539     Zink, Tracey...       1539
Zirger, Jean.................      1539     Zito, Vincent..       1539
Zocher, Marc.................      1540     Zoeller,              1540
                                             Chetanaa.
Zondorgh, Honz...............      1540     Zorn, Gretta...       1540
Zourarakis, Ph.D., GISP, CMS,      1540     Zuber, Anne....       1540
 Demetrio P..
Zucchi, Robert...............      1541     Zuchowski, Pam.       1541
Zucker, Isabel...............      1541     Zuckerman,            1541
                                             Richard.
Zurakowski, Michele..........      1541     Zuyber, Chad...       1542
Form Letters *...............      1542* Editor's note: Where possible the form letters submitted have been
  attributed to the originating organization. Signatories to the letters
  are in alphabetic order. However, due to printing constraints the
  signatories are not listed in this Table of Contents.


 
   THE FUTURE OF U.S. FARM POLICY: FORMULATION OF THE 2012 FARM BILL

                              ----------                              


                         FRIDAY, MARCH 9, 2012

                          House of Representatives,
                                  Committee on Agriculture,
                                                  Saranac Lake, NY.
    The Committee met, pursuant to call, at 9:00 a.m. (EST), at 
the Sparks Athletic Complex, North Country Community College, 
23 Santanoni Avenue, Saranac Lake, New York, Hon. Frank D. 
Lucas [Chairman of the Committee] presiding.
    Members present: Representatives Lucas, Goodlatte, Conaway, 
Gibson, David Scott of Georgia, Owens, and Pingree.
    Staff present: John Goldberg, Tamara Hinton, Nicole Scott, 
Debbie Smith, Pelham Straughn, John Konya, Margaret Wetherald, 
Keith Jones, Mary Knigge, Jamie Mitchell, and Caleb Crosswhite.

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    The Chairman. This hearing of the Committee on Agriculture 
entitled, The Future of U.S. Farm Policy: Formulation for 2012 
Farm Bill, will come to order. I'll speak into the microphone 
and try to make that work.
    Good morning, thank you all for joining us today for our 
first farm bill field hearing of 2012.
    Field hearings are one of the most important parts of the 
farm bill process. Not only do they allow the Members of our 
Committee to hear directly from farmers and ranchers, but they 
give us a chance to see the diversity of agriculture across 
this great country.
    These field hearings are a continuation of what my good 
friend and Ranking Member Collin Peterson started in the spring 
of 2010. Today we'll build upon the information we've gathered 
in those hearings as well as the 11 farm policy audits we 
conducted this past summer.
    We used those audits as an opportunity to thoroughly 
evaluate farm programs to identify areas where we could improve 
efficiency.
    The field hearings serve a slightly different purpose. 
Today we're here to listen.
    I talk to producers all the time back in Oklahoma. I see 
them in the feed store. I meet with them in my town hall 
meetings. And of course, I get regular updates from my boss, 
Linda Lucas, back on our farm in western Oklahoma. But the 
conditions and crops in Oklahoma are different from what you'll 
find in New York or Illinois or California, for that matter.
    That's why we hold field hearings, to meet farmers and 
ranchers from different regions who produce a broad range of 
products.
    New York is a fitting place to kick off these hearings 
because of the variety of food produced here.
    New York farmers produce a wide range of specialty crops 
that generate $1.34 billion annually and make up \1/3\ of the 
state's total agriculture receipts. New York ranks second in 
apple production, third in wine and grape juice production, and 
among the top vegetable producing states in the country. New 
York is also among the nation's top dairy states, and I'm 
pleased we'll hear from representatives of each of those 
commodities this morning.
    While each sector has unique concerns when it comes to farm 
policy, I'd like to share some of my general goals for the next 
farm bill. First and foremost, I want to give producers the 
tools to help you do what you do best and that is to produce 
the safest, most abundant, most affordable food supply 
literally in the history of the world.
    To do this we must develop a farm bill that works for all 
regions and all commodities. We've repeatedly heard that a one-
size-fits-all program will not work. The commodity title must 
give producers options so that they can choose the program that 
works best for them.
    And I'm also committed to providing a strong Crop insurance 
program. The Committee has heard loud and clear about the 
importance of crop insurance and we believe it is the 
cornerstone of the safety net. Today we hope to hear how we can 
improve crop insurance, especially for specialty crops.
    Last, we'll work to ensure that producers can continue to 
use conservation programs to protect our natural resources. I'm 
interested to hear how producers in this area of the country 
use the conservation programs. I'm particularly curious as to 
your thoughts on how to simplify the process so they are easier 
for our farmers and ranchers to use.
    Beyond those priorities, I know there are a number of 
universal concerns facing agriculture across the country.
    For instance, my producers in Oklahoma are worried about 
regulations coming down from the Environmental Protection 
Agency and how they must comply with those regulations.
    I'm also aware that the death tax is creating difficulties 
for farming operations. I want to hear how these Federal 
policies are affecting producers in the Northeast, but the main 
concern of our hearing will be how the farm bill affects 
specialty crops and dairy producers.
    While specialty crops do not participate in traditional 
commodity programs, there are other Federal programs that play 
an important role in helping American fruit, vegetable and 
nursery crop growers to stay competitive.
    These programs give specialty crop growers access to vital 
research programs and help protect their crops from pest and 
disease. Additionally, they provide assistance in maintaining 
and opening international markets and increasing consumption of 
the best fruits and vegetables in the world. I look forward to 
hearing your perspective on those programs.
    For dairy producers, the ongoing discussion of dairy reform 
is of particular importance. The recent decline in prices 
coupled with rising production costs have once again 
demonstrated the need to improve and modernize our dairy safety 
net. While I do not expect unanimity among dairy industry 
participants, we never get unanimity among farmers in general, 
I do encourage all industry participants, producers and 
processors alike, to find some level of consensus regarding the 
type of reform that is needed.
    The exact nature of the reform we include in the next farm 
bill will rely heavily on input we receive today and in future 
hearings. While there are several proposals that have been 
introduced, and we have had some level of agreement on a 
starting point for discussion, we do not claim to have all the 
answers.
    With your help and guidance, we would hope to develop a 
comprehensive package of reforms that are fiscally responsible 
and balanced with regards to size and region.
    Today we'll hear from a selection of producers. 
Unfortunately, we just don't have time to hear from everybody 
who would like to share their perspective, but we have a place 
on our website where you can submit your comments in writing to 
the House Agriculture Committee. You can find that--well, visit 
agriculture.house.gov/farmbill to find that place. And I 
believe we have, at the back of the room, some post cards that 
have that e-mail address on it so you can send your comments 
in.
    As I said before, we don't have an easy road ahead of us, 
but I'm confident that by working together we can craft a farm 
bill that continues to support the success story that American 
agriculture is.
    [The prepared statement of Mr. Lucas follows:]

Prepared Statement of Hon. Frank D. Lucas, a Representative in Congress 
                             from Oklahoma
    Good morning, and thank you all for joining us today for our first 
farm bill field hearing of 2012.
    Field hearings are one of the most important parts of the farm bill 
process. Not only do they allow Members of our Committee to hear 
directly from farmers and ranchers, but they give us a chance to see 
the diversity of agriculture across this great country.
    These field hearings are a continuation of what my good friend and 
Ranking Member Collin Peterson started in the spring of 2010. Today, 
we'll build upon the information we gathered in those hearings, as well 
as the 11 farm policy audits we conducted this past summer.
    We used those audits as an opportunity to thoroughly evaluate farm 
programs to identify areas where we could improve efficiency.
    The field hearings serve a slightly different purpose. Today, we're 
here to listen.
    I talk to producers all the time back in Oklahoma. I see them in 
the feed store and I meet them at my town hall meetings. And of course, 
I get regular updates from my boss back on our ranch. But the 
conditions and crops in Oklahoma are different than what you'll find in 
New York or Illinois or California.
    That's why we hold field hearings--to meet farmers and ranchers 
from different regions who produce a broad range of products.
    New York is a fitting place to kick off these hearings because of 
the variety of food produced here.
    New York farmers produce a wide range of specialty crops that 
generate $1.34 billion annually and make up \1/3\ of the state's total 
agriculture receipts. New York ranks second in apple production, third 
for wine and grape juice production, and is among the top vegetable 
producing states in the country.
    New York is also among the nation's top dairy producers. I am 
pleased we will hear from representatives of each of these commodities 
this morning.
    While each sector has unique concerns when it comes to farm policy, 
I'd like to share some of my general goals for the next farm bill.
    First and foremost, I want to give producers the tools to help you 
do what you do best, and that is to produce the safest, most abundant, 
most affordable food supply in the world.
    To do this we must develop a farm bill that works for all regions 
and all commodities. We have repeatedly heard that a one size fits all 
program will not work. The commodity title must give producers options 
so that they can choose the program that works best for them.
    I also am committed to providing a strong crop insurance program. 
The Committee has heard loud and clear about the importance of crop 
insurance and we believe it is the cornerstone of the safety net. 
Today, we hope to hear how we can improve crop insurance, especially 
for specialty crops.
    Last, we'll work to ensure that producers can continue using 
conservation programs to protect our natural resources.
    I'm interested to hear how producers in this area of the country 
use the conservation programs. I'm particularly curious as to your 
thoughts on how to simplify that process so they are easier for our 
farmers and ranchers to use.
    Beyond those priorities, I know there are a number of universal 
concerns facing agriculture across the country.
    For instance, my producers in Oklahoma are worried about 
regulations coming down from the Environmental Protection Agency (EPA) 
and how they must comply with those regulations.
    I'm also aware that the death tax is creating difficulties for 
farming operations. I want to hear how these Federal policies are 
affecting producers in the Northeast.
    But the main focus of our hearing will be how the farm bill affects 
specialty crops and dairy producers.
    While specialty crops do not participate in traditional commodity 
programs, there are other Federal programs that play an important role 
in helping American fruit, vegetable and nursery crop growers stay 
competitive.
    These programs give specialty crop growers access to vital research 
programs and help protect their crops from pest and disease. 
Additionally, they provide assistance in maintaining and opening 
international markets and increase consumption of the best fruits and 
vegetables in the world. I look forward to hearing your perspective on 
these programs.
    For dairy producers, the ongoing discussion of dairy reform is of 
particular importance.
    The recent decline in prices coupled with rising production has 
once again demonstrated the need to improve and modernize our dairy 
safety net.
    While I do not expect unanimity among dairy industry participants, 
I do encourage all industry participants--producers and processors 
alike--to find some level of consensus regarding the type of reform 
that is needed.
    The exact nature of the reform we include in the next farm bill 
will rely heavily on the input we receive today and in future hearings.
    While there are several proposals that have been introduced, and we 
have had some level of agreement on a starting point for discussion, we 
do not claim to have all of the answers. With your help and guidance, 
we would hope to develop a comprehensive package of reforms which are 
fiscally responsible and balanced with regards to size and region.
    Today, we'll be hearing from a selection of producers. 
Unfortunately, we just don't have time to hear from everybody who would 
like to share their perspective. But we have a place on our website 
where you can submit those comments in writing. You can visit http://
agriculture.house.gov/farmbill to find that place. You can also find 
that address on the postcards available on the table here.
    As I said before, we don't have an easy road ahead of us. But I'm 
confident that by working together, we can craft a farm bill that 
continues to support the success story that is American agriculture.

    The Chairman. With that, I turn to my Ranking Member today, 
a gentleman from Georgia, Mr. Scott, for his comments.

  OPENING STATEMENT OF HON. DAVID SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    Mr. David Scott of Georgia. Thank you very much, Mr. 
Chairman, and I'd just like to say, at the outset, what a 
wonderful part of the country this is. My first time into the 
Lake Placid, Saranac Lake area, and I must say it is a 
beautiful and very interesting visit. I certainly also want to 
say how great it is to be in the home and the districts of my 
fellow Representatives, Representative Owens and Representative 
Gibson, both of whom are just doing a marvelous job for you 
back in Washington.
    As the Chairman clearly stated, we're here to hear from 
you. This is very important for us to hear. We are engaging in 
this farm bill at a very, very challenging time. Because we not 
only have to go back through to the 2008 Farm Bill, but we have 
to do it at a time when we're also faced with significant 
budget constraints. At the same time, we want to hear on the 
many areas of dairy, conservation, specialty crops, which are 
very, very important for this area of New York.
    And also we want to hear from you about some of the 
regulations. All regulation is not bad, but at the same time we 
can sit in Washington in our wonderful offices and we can make 
great policy, but you have to let us know how it is working. We 
want to make sure that policies and regulations from the EPA 
and others are done in a way that allows our farmers and 
ranchers to be able to be productive, to be able to be 
profitable and not be over-burdensome. So we look forward to 
hearing from you on that.
    Again, Mr. Chairman, thank you very much, and we look 
forward to a wonderful hearing.
    The Chairman. The gentleman yields back, and as is the 
custom, we will listen to very brief opening statements from 
our two colleagues who represent New York on the House 
Agriculture Committee. I will first recognize Mr. Owens.

OPENING STATEMENT OF HON. WILLIAM L. OWENS, A REPRESENTATIVE IN 
                     CONGRESS FROM NEW YORK

    Mr. Owens. I thank you, Mr. Chairman. First let me say that 
I, and I think everyone in attendance here, is extraordinarily 
excited at this opportunity. This is unique and it allows 
northern New York and much of Vermont and other states that 
surround us to have an opportunity, as you said, to listen to 
the other side. And I think that that's very important.
    As I was explaining to some of the folks I was talking to 
before the hearing, this is unique in that we have the 
opportunity to talk to people from throughout the country. This 
is very important that we get all perspectives into this farm 
bill.
    You know, people don't recognize how important ag is in 
northern New York. It is an extraordinarily important part of 
what we do and what happens in our communities. It affects 
everything. It affects real property taxes, it affects the farm 
dealers. It has real impact on all of our lives on a daily 
basis.
    I can only tell you how thankful I am that you are here, 
that we are here collectively. And in particular, I'd like to 
thank Mr. Gibson for his participation and his assistance in 
this process. And let me also say that I hope that as we listen 
today, we take those skills back to Washington with us. Thank 
you very much.
    The Chairman. With that, the chair now recognizes Mr. 
Gibson.

      OPENING STATEMENT OF HON. CHRISTOPHER P. GIBSON, A 
            REPRESENTATIVE IN CONGRESS FROM NEW YORK

    Mr. Gibson. Thank you, Mr. Chairman, and let me just echo 
the comments of my colleague, Bill Owens. This is a historic 
day for this part of the state and indeed for our state in 
general. You know, the Chairman listed some of the data, that 
second in the nation with regard to dairy, second in the nation 
with regard to apples, third in the nation with regard to 
grapes, fifth in the nation with regard to specialty crops. We 
are a leader in the nation when it comes to farming in the 
agriculture sector of the economy.
    And what Bill Owens mentioned is absolutely correct, it's 
that we're here today to listen and to work together. And you 
turn on the news today, doesn't matter what channel that you 
happen to turn on, whether it's Fox or MSNBC, you hear all this 
negativity about the status of the country and the Democrats 
and Republicans won't work together. Let me just tell you that 
I really value my friendship and the work that I do with Bill 
Owens. What we're doing here today, with regard to farming, is 
critically important.
    As the Chairman mentioned, we're here today to make sure 
that we have the right input, because we're getting ready to 
write a bill this year that's going to impact this sector of 
the economy for the next 5 to 6 years and we need to get it 
right.
    And so, Mr. Chairman, thank you for--you're only doing four 
of these across the entire United States of America, and the 
fact that you chose to come here, right here to Saranac Lake 
and into the Adirondack region, that really means a lot to me, 
and I want to thank you personally and professionally. I look 
forward to this hearing. I yield back.
    The Chairman. The gentleman yields back his time.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony and to ensure there's ample time for questions.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota
    As we begin writing the next farm bill, we will hear directly from 
farmers and ranchers across the country on the issues they face every 
day.
    Writing a new farm bill will not be an easy task most notably due 
to budget constraints. Everybody is being asked to do more with less 
and, it seems to me, that agriculture is being asked to cut even more 
than others.
    The agriculture economy is the shining success of our nation's 
economy. We should not let those outside of agriculture try to mess up 
the only part of the economy that's actually working.
    It is my hope that everyone in agriculture--producers in all 
regions, representing all commodities--come together. We need to be 
united to pass a good farm bill.
    I thank the witnesses for making the time to testify hear today.

    The Chairman. With that, I'd like to welcome our first 
panel of witnesses to the table: Mr. Eric Ooms, a dairy 
producer, Partner in Adrian Ooms & Sons, Incorporated, Old 
Chatham, New York. We also have Mr. Neal Rea, dairy producer, 
Chairman, Agri-Mark Dairy Cooperative, Salem, New York. We also 
have Mr. Jeremy Verratti, a dairy and crop producer, Verratti 
Farms, LLC, Gasport, New York. And with us also is Ms. Michele 
Ledoux, a beef producer, Adirondack Beef Company, New York.
    With that, Mr. Ooms, begin when you're ready, please.

STATEMENT OF ERIC OOMS, DAIRY PRODUCER; PARTNER, ADRIAN OOMS & 
                  SONS, INC., OLD CHATHAM, NY

    Mr. Ooms. Thank you. I would like to start by thanking the 
Chairman, and Congressmen Peterson, Gibson and Owens for the 
opportunity to testify here today.
    My father, two brothers and I are partners in a 450 cow 
dairy farm in Kinderhook, New York. We raise approximately 
1,800 acres of corn, alfalfa and various grasses for our own 
herd as well as for cash crops. In 2011, we erected a grain 
dryer and storage to further diversify our business. My wife, 
Catherine Joy, and I have two children, Arend who is 4, Grace 
who is 2, and it's my goal as a farmer and a dad that my kids 
have the same opportunities to work on a farm like I did with 
my dad.
    Dairy farming has been on a veritable roller coaster for my 
family and everyone else in the dairy industry for quite some 
time. Dairy prices in 2009 caused indescribable pain in the 
industry. I think you all know this. While the past 2 years 
brought considerably better dairy prices to farmers, high 
inputs have tempered the average dairy farmer's optimism. This 
year's forecast shows softening prices paid to farmers, but our 
inputs are not going down. In fact, the price of fuel is 
rising. This is very concerning.
    As we look forward, it's imperative to remember that we are 
now in a new paradigm of higher feed prices, so as policy 
makers and farmers, we need to keep this in mind as we build 
our farm business plans as well as formulate policy. It's also 
important to remember that while 2009 was a horrible 
experience, we cannot set policy for the next 5 years based 
solely on 1 year, but rather look at long-term trends. It is 
vitally important, as we go through this farm bill process, 
Congress not make things worse through their action or 
inaction.
    While there are some programs and structural pricing 
aspects that need to be changed, some programs are working for 
dairy farmers. For instance, the Federal Order System has been 
working. To dramatically change or eliminate the Federal Order 
System would result in pricing and market chaos that is not 
needed. EQIP has proven itself to be a valuable and effective 
program and funding should be maintained at adequate levels in 
the next farm bill. The vision of Capper-Volstead may have not 
worked a hundred percent perfectly, but overall, my cooperative 
has played a key role in helping my farm market my product as 
well as working with my neighbors in filling its market while 
balancing those farms' production. We need to protect this 
relationship.
    Credit is vital to any dairy farm. The cooperative 
structure of the Farm Credit System is in the long-term best 
interest of agriculture across the country. I urge no new 
regulatory burdens on Farm Credit. These are some policies that 
work reasonably well.
    Here are some items that could be reworked: In a perfect 
world with perfectly balanced budgets, we should work to 
improve MILC as a safety net. However, if we eliminate MILC, 
what are we putting in its place? Margin insurance programs 
have promise. LGM is very effective, although it has a critical 
flaw of being inaccessible due to severe under-funding. If MILC 
is eliminated, there must be something workable and equitable 
to replace it.
    Price discovery remains a concern. Theoretically, the CME 
and NAS Survey should work. However, with so little trading on 
the CME, producers are skeptical. Competitive pay price modeled 
after the former M-W could be a way to go here. USDA's recent 
rule on electronic price reporting is a step in the right 
direction. I appreciate the Committee's work in bringing this 
reform to reality. We will see in the next few months or years 
what tweaking is needed. The Price Support Program seems to 
have outlived its usefulness and it seems as though there is a 
national industry consensus to eliminate it. These savings 
could be used to bolster whatever safety net replacement 
vehicle the farm bill puts in place.
    There are also some initiatives that we are not doing that 
we should be doing, such as since the 1960s, California has 
been fortifying milk with higher solids, non fat. With study 
after study showing that kids are not getting enough calcium, 
this is a common sense idea that we should have been doing for 
years.
    The Dairy Security Act should be a major focus of farm bill 
discussions. Farm Bureau supports the Dairy Security Act 
because the supply management component of this proposal is 
voluntary. A voluntary supply management plan gives producers 
the freedom to make the best decision for their farm free of 
D.C. bureaucrats.
    Before I close, I would not be doing my job if I did not at 
least mention the need for labor in agriculture, not just 
dairy. In addition to the DOL's proposed regulations for youth 
labor, just need to point out if there is to be an E-Verify 
bill there needs to be an agricultural guest-worker component. 
Overall, we need immigration and H-2A reform. While this is not 
in the jurisdiction of the Agriculture Committee or the farm 
bill, I urge each of you as Members of Congress to remember 
that we have a choice in America to import labor or import 
food.
    I applaud those Members of the Committee like Congressman 
Gibson and Congressman Owens, who are working toward that end 
and would urge all of you to help us in this endeavor.
    Thank you again for giving me the opportunity to comment 
here today.
    [The prepared statement of Mr. Ooms follows:]

Prepared Statement of Eric Ooms, Dairy Producer; Partner, Adrian Ooms & 
                      Sons, Inc., Old Chatham, NY
    Good morning. I would like to start by thanking Chairman Lucas, 
Congressman Peterson, Congressman Gibson and Congressman Owens for the 
opportunity to testify here today.
    My name is Eric Ooms. My father, two brothers and I are partners in 
a 450 cow dairy farm in Kinderhook, NY. We raise approximately 1,800 
acres of corn, alfalfa and various grasses for our own herd as well as 
for cash crops. In 2011, we erected a grain dryer and storage to 
further diversify our business. My wife Catherine Joy and I have two 
children, Arend who is 4 and Grace who is 2. It is my goal as a farmer 
and a father that my kids have the same opportunities to work on the 
farm with their dad, like I did with mine.
    In my role as Vice President of New York Farm Bureau, I would like 
to thank the Committee for holding one of its farm bill field hearings 
here in the Empire State where the economic impact of agriculture is 
well over $4 billion to our state's economy. New York can boast about 
its diversity in food products as well as its national rankings for 
certain commodities. We are the second largest apple producer, third 
largest grape producer, fourth largest dairy producer and sixth largest 
vegetable producing state.
    In addition, New York has become the new hot destination for yogurt 
processing with our local milk supply and proximity to major east coast 
populations. You are probably familiar with the recent success stories 
of Greek yogurt manufacturers Chobani and Fage, but New York has also 
recently welcomed the international corporations of Alpina and Mueller 
to our Genesee Valley Agri-Business Park in Batavia. Our own Upstate 
Niagara Milk Cooperative is also revitalizing the former Kraft plant in 
St. Lawrence County for Greek yogurt production. All this yogurt 
activity brings opportunity for more sourcing of local milk which New 
York farmers hope to meet.
    I have been asked to talk about dairy policy as it pertains to the 
farm bill and I am happy to do so. Dairy farming has been a veritable 
roller coaster for my family and everyone else in the dairy industry 
for quite some time. Dairy prices in 2009 caused indescribable pain and 
suffering in the dairy industry, I think you all know this. While the 
past 2 years brought considerably better dairy prices paid to farmers, 
high inputs have tempered the average dairy farmers' optimism. This 
year's forecast shows softening milk and cheese prices paid to farmers, 
but our inputs are not going down. In fact, the price of fuel is rising 
. . . this is very concerning.
    As we look forward, it is imperative to remember that we are in a 
new paradigm of higher feed prices. So as policy makers and farmers, we 
need to keep this in mind as we build our farm business plans as well 
as formulate policy. It is also important to remember that while 2009 
was a horrible experience for all of us, we cannot set policy for the 
next 5 (or fifty) years based solely on one year, but rather look at 
long term trends.
    It is vitally important as we go through this farm bill process 
that Congress not make things worse through their action or inaction. 
While there are some programs and structural pricing aspects that need 
to be changed, some programs are working for dairy farmers (even if 
they are imperfect):

  <bullet> The Federal Order System has been working and to 
        dramatically change or eliminate the Federal Order System would 
        result in pricing and market chaos that is NOT needed. I would 
        further add, that component pricing in the Federal Orders has 
        worked as well.

  <bullet> In regards to the Federal pricing formula, the current Class 
        I price differentials are working. As a New Yorker, I would 
        always like to see them a little higher and would welcome 
        decoupling of Class I from manufacturing milk for price 
        determination. I do realize that this is not politically 
        realistic and would recommend Congress not adjust them 
        significantly.

  <bullet> The continued inclusion and importance of dairy products in 
        the School Meals Program. There is no better source of calcium, 
        potassium, protein and vitamins A, D and B<INF>12</INF>. This 
        is a win for kids and farmers.

  <bullet> The Environmental Quality Incentives Program (EQIP) has 
        proven itself to be a valuable and effective program that has 
        helped every dairy farmer in one form or another meet their 
        environmental regulatory obligations. These EQIP dollars are a 
        smart and cost-efficient investment of taxpayer money for 
        agriculture and the environment. EQIP funding should be 
        maintained at adequate levels in the next farm bill.

  <bullet> The vision of the Capper-Volstead Act may have not worked 
        out 100% perfect, but overall my Cooperative has played a key 
        role in helping my farm market my product as well as working 
        with my neighbors in filling niche markets while balancing 
        those farms production. We need to protect this relationship.

  <bullet> Credit is vital to any dairy farm. Over 65% of ag credit in 
        the Northeast is provided by the Farm Credit System. The 
        Cooperative structure of the Farm Credit System is in the long-
        term best interest of agriculture across the country. I urge no 
        new regulatory burdens on Farm Credit.

    Those are some of the policies and programs that work reasonably 
well. Here are some items that could be re-worked:

  <bullet> Milk Income Loss Contract Program (MILC). In a perfect world 
        with perfectly balanced budgets, we should work to improve MILC 
        as a safety net for producers, but we are faced with real-world 
        fiscal issues where money does not grow on trees. If we 
        eliminate MILC, what are we putting in its place? Margin 
        insurance programs have promise, and the Livestock Gross Margin 
        insurance program (LGM) is very effective although it has the 
        critical flaw of being highly inaccessible due to severe under-
        funding. Many producers would like to take advantage of LGM 
        only to find themselves shut out of the program. If MILC is 
        eliminated, there must be something workable and equitable to 
        replace it.

  <bullet> Price Discovery remains a concern. Theoretically, using the 
        Chicago Mercantile Exchange and National Ag Statistics Survey 
        should work; however with so little trading on the CME, 
        producers are skeptical, rightly or wrongly there is a real 
        lack of faith. A competitive pay price modeled after the former 
        Minnesota-Wisconsin pricing formula could be a way to go here. 
        USDA's recent rule on auditing and electronic price reporting 
        is a step in the right direction. I appreciate the Committee's 
        work in bringing this reform to reality and we will see in the 
        next few months or years what tweaking is needed.

  <bullet> Dairy Price Support Program (DPSP). DPSP seems to have 
        outlived its usefulness and it seems as though there is 
        national industry consensus to eliminate it. The savings could 
        be used to bolster whatever safety net replacement program 
        vehicle the farm bill puts in place.

  <bullet> Import assessment for dairy promotion. We certainly 
        appreciate the inclusion of a $.075 per cwt assessment on 
        imported dairy products in the most recent farm bill. I would 
        just remind the Committee that domestic producers are still 
        paying $.15 per cwt for the same promotion.

    There are also some initiatives that we are not doing that we 
should be doing:

  <bullet> California Standards for Fluid Milk. Since the 1960's 
        California has been fortifying milk with higher solids non fat. 
        With study after study showing that kids are not getting enough 
        calcium, this is a common sense idea that we should have been 
        doing for years.

  <bullet> Farm Savings Accounts. This tax strategy tool helps farmers 
        manage risk voluntarily by shifting income during profitable 
        years via tax-deferred deposits into a savings account for 
        withdrawal during less profitable years.

    To comment on the Dairy Security Act, a proposed bill to reform 
existing pricing and safety net policies which should be a major focus 
of farm bill discussions. Farm Bureau supports the Dairy Security Act 
because the supply management component of this proposal is voluntary. 
If an individual producer chooses to limit production and the Federal 
Government wants to incentivize this, that is the producer's decision 
and we support that. Earlier, I mentioned the rapid growth of the 
yogurt sector here in New York and the opportunity it brings for more 
sourcing of local milk. A voluntary supply management plan gives 
producers the freedom to make the best decision for their farm 
operation--whether that is to enroll in the voluntary supply 
management/margin insurance program or increase production to meet new 
market demand from yogurt processing.
    Before I close, I would not be doing my job if I did not at least 
mention the need for labor in agriculture (not just dairy). One of the 
most serious issues facing farmers today is the U.S. Department of 
Labor's (DOL) proposed youth agricultural labor regulations. Despite a 
re-proposal of the parental exemption, farmers have no indication that 
our concerns will be addressed. Also, the hazardous occupations orders 
are set to be finalized in August and the original proposal places 
serious restrictions on the activities youth can do on the farm--things 
that are safe and part of the learning process on farms. How these will 
be finalized is a major concern. It is important that the Committee 
remain vigilant on both these issues to protect our family farms.
    Similarly, if there is to be an E-Verify bill, there needs to be an 
agricultural guest-worker component. Overall, we need immigration 
reform and H-2A reform. While this is not in the jurisdiction of the 
Agriculture Committee or the farm bill, I urge each of you as Members 
of Congress to remember that we have a choice in America to import 
labor or import food. I applaud those Members of the Committee like 
Congressmen Gibson and Owens who are working toward that end and would 
urge all of you to help us in this endeavor.
    I know the road to a new farm bill is long and time is short. NYFB 
stands ready to help you and Committee staff craft a thoughtful and 
workable farm bill to serve our family farms. Thank you again for 
giving me the opportunity to comment here today. I would be happy to 
answer any questions you have at this time.

    The Chairman. Thank you.
    Mr. Rea, proceed when you're ready.

 STATEMENT OF NEAL REA, DAIRY PRODUCER; CHAIRMAN OF THE BOARD, 
             AGRI-MARK DAIRY COOPERATIVE, SALEM, NY

    Mr. Rea. Thank you. Chairman Lucas and House Agriculture 
Committee Members, thank you for allowing me to testify today 
about dairy policy as it impacts me, my family, my farm, and my 
cooperative.
    I'm Neal Rea. I own a dairy farm with my wife Carol, our 
two sons Thane and Travis, and our daughter-in-law Karen. Our 
dairy is located in Washington County, New York, and has been 
in our family for more than 200 years. It is because of the 
unselfish dedication of my family to the success of our dairy 
that I am able to serve as the Chairman of the Board for my 
cooperative, Agri-Mark, and on the Board of Directors for NMPF.
    Agri-Mark is a dairy cooperative here in the Northeast with 
more than 1,200 members in New York and the New England States. 
Our members are proud owners of McCadam cheese, an award-
winning cheddar produced in Chateaugay, New York, only a short 
distance from here. Our members also own our fabulous flagship 
brand, Cabot of Vermont. The 2012 Farm Bill is discussed at 
nearly every monthly Agri-Mark board meeting. Today's hearing 
is timely and greatly appreciated.
    First, I would like to share our farm experiences of 2009 
and the progression of events leading up to today. Our farm has 
very little new equipment. We rely on good used equipment which 
we maintain ourselves. We have milk cow facilities to house 
about 190 cows. Construction of these facilities was 
accomplished over many years with some approaching 45 years 
old. Our most recent addition was completed during the winter 
of 2010 and 2011. Our milking center is housed in our original 
stanchion barn.
    As 2009 progressed, we've joined the thousands of dairy 
farm operations that became victims of negative cash flow. Our 
milk checks were considerably less than the corresponding 
bills. There were tears, sleepless nights, frustration and 
tension. Carol's philosophy was, and still is, that we must pay 
for cows' feed, we must pay for electricity, and we must pay 
for herd health. All other creditors will be paid as possible. 
Some months we would only pay a hundred dollars on a bill that 
was over a thousand dollars. Our own pay was delayed by months. 
It was extremely difficult to face our agriculture supply and 
service providers with partial payments knowing they too had to 
borrow huge sums of money to cover their operating expenses and 
deficit income.
    When the situation became overwhelming, we went to Farm 
Credit for operating capital. This had a residual effect 
through much of 2010 and even into 2011 because of the need to 
pay back borrowed money. Our margins were squeezed.
    The difference between the farm milk price and feed cost 
are often referred to as dairy margins. These margins determine 
if a dairy can pay its bills and stay in business. Severely low 
or even negative margins in 2009 and 2010 made capital and land 
investments impossible. The average margin in 2009 was $3.66. 
Even when margins improved in 2010, they were insufficient to 
cover costs. Margins did a fair recovery to a degree in 2011 to 
$7.59, but are shrinking as we speak and are projected to be 
about $5.80 this year.
    Given this dire situation on our farm, I was extremely 
proud to be selected to the NMPF task force several years ago 
whose goal was to develop a new dairy policy for 2012 Farm 
Bill. I truly believe it was the affirmation of adversity that 
brought dairy farmers from New York and New England together 
with dairymen from all over the country to design policy that 
would provide a better safety net, reduce extreme volatility 
and cost less to government. I have gained friends and 
confidants from all across the country with the same goal.
    Margin protection is the key to a successful national dairy 
policy. This is exactly why Agri-Mark designed a marginal milk 
pricing plan, which later became a vital part of Foundation for 
the Future and eventually today's Dairy Security Act. Combined 
with an adequate Margin Insurance Program, dairy farmers will 
have a key management tool to navigate the current and future 
extreme farm milk and feed price volatility climates.
    Margin insurance should allow farmers to chose their level 
of participation as well as be affordable and encourage all 
sizes and types of operations to be protected. However, a break 
in premium for producers would be greatly appreciated.
    The secret ingredient, from my perspective, is compromise, 
consensus and commitment. Remarkably, farmers representing 
about 80 percent of U.S. milk production have come to a 
consensus, and we urge you to support the principles of the 
Dairy Security Act. Thank you for your attention.
    [The prepared statement of Mr. Rea follows:]

Prepared Statement of Neal Rea, Dairy Producer; Chairman of the Board, 
                 Agri-Mark Dairy Cooperative, Salem, NY
    Chairman Lucas, Ranking Member Peterson and House Agriculture 
Committee Members: thank you for allowing me to testify today about 
dairy policy as impacts me, my family, my farm, and my co-op.
    I am Neal Rea. My wife, Carol, and I own a dairy farm with our two 
sons, Thane and Travis, and daughter-in-law Karen. Our dairy is located 
in Washington County, and has been in our family for more than 200 
years. It is because of the unselfish dedication of my family to the 
success of our dairy that I am able serve as the Chairman of the Board 
for my cooperative, Agri-Mark and on the board of directors for 
National Milk Producers Federation.
    Agri-Mark is a dairy cooperative here in the Northeast with more 
than 1,200 members in New York and the New England states. We have many 
member farms north of us along the St. Lawrence River basin; from the 
Vermont border to Lake Ontario. Our members are the proud owners of 
McCadam cheese, an award winning cheddar produced in Chateaugay, NY--
only a short distance from here. Our members also own our fabulous 
flagship brand Cabot of Vermont.
    Very seldom does an Agri-Mark monthly board meeting conclude 
without the 2012 Farm Bill debate being mentioned, so on my own behalf 
as well as on the farmers I represent through Agri-Mark, we sincerely 
appreciate the House Agriculture Committee Members and staff traveling 
to New York to hear from dairy producers like myself.
    First, I would like to share our farm experiences from 2009, and 
the progression of events leading up to today's very timely House 
Agriculture Committee hearing. We have very little new equipment on our 
farm; we rely on good used equipment which we maintain ourselves. We 
have milk cow facilities to house about 190 cows. Construction of these 
facilities was accomplished over many years; some of our housing is 45 
years old. Our most recent addition was completed during the winter of 
2010/11. Our milking center is housed in the original stanchion barn; 
the equipment was used and expanded over the years to a current double 
9 herringbone.
    As the terrible conditions of 2009 played out (progressed) we 
became the victim of negative cash flow. Our milk checks were 
considerably less than the corresponding bills. There were tears, 
sleepless nights, frustration and tension. Carol's philosophy was and 
still is: we must pay for the cows feed, we must pay for electricity, 
and we must pay for herd health. All other creditors were on an 
allotment program. Some months we could only pay $100 on a bill that 
was over $1,000. Sometimes our own pay was delayed by months. It was 
extremely difficult to face your agriculture supply personnel with 
partial payments, knowing they themselves had to borrow huge sums of 
money to cover their own operating expenses and deficit income. When 
the situation became overwhelming, we went to Farm Credit for operating 
capital. This had residual effects through much of 2010, because of 
extended credit and the need to pay back borrowed money.
    Dairy farmers are a resilient breed, and I have a deeper 
appreciation for those who survived 2009.
    Margins (the difference between the feed costs and the milk price) 
became ever so important. This is exactly why Agri-Mark designed a 
program which later became a vital part of the National Milk Producers 
Federation's Foundation for the Future, which is now the basis for the 
Dairy Security Act.
    What has become clear to the dairy producer community from this 
extraordinary strain is that we need a combination of approaches to 
deal with the current situation. To address the underlying problems 
that caused this crisis and the many industry factors that contributed 
to its depth and protracted nature, we need to focus on solutions that 
avoid recurrences of this situation in the future.
    Toward that end, NMPF created a Strategic Planning Task Force to 
seek consensus across the dairy producer community and create a solid 
``Foundation for the Future.'' I and my co-op, Agri-Mark, have been an 
integral part of this process. The goal of the Strategic Planning Task 
Force was to analyze and develop a long-term strategic plan for 
consideration by the NMPF Board of Directors that would have a positive 
impact on the various factors influencing both supply and demand for 
milk and dairy products. It is extremely important to develop workable 
and realistic solutions that will garner broad support from dairy 
producers nationwide in order to unify behind an approach as this 
Committee begins to consider the next farm bill.
    I was extremely proud to be selected to the NMPF task force, 
designed to develop a new dairy policy for the 2012 Farm Bill. I truly 
believe it was the aforementioned adversity that brought dairy farmers 
from NY and Vermont together with dairymen from all over the country to 
design a dairy policy that would be less costly to the government and 
with the ability to correct the extreme volatility that caused the 
wreck of 2009. Throughout the process, I have gained friends and 
confidants from other major milk-producing regions of the country 
including New Mexico, California, Idaho, Michigan, Wisconsin, Nebraska 
and Indiana.

    Margin protection is the key to the success of a dairy policy. The 
secret ingredient from my perspective now is compromise, consensus and 
commitment.

    Rather than offering just one solution, dairy policy must be multi-
faceted: it must refocus existing farm-level safety nets; create a new 
program to protect farmers against low margins; and establish a way to 
better balance dairy supply and demand. I would like to touch on each 
aspect of this approach.

    1. Refocusing Current Safety Nets

      Both the Dairy Product Price Support Program and the MILC program 
        are inadequate protections against not just periodic low milk 
        prices, but also in confronting the destructively low profit 
        margins that occur when input costs, especially feed prices, 
        shoot up. The Dairy Product Price Support Program, in 
        particular, has outlived its usefulness and hinders the ability 
        of U.S. and world markets to adjust timely and effectively to 
        supply-demand signals.
      Discontinuing the Price Support Program (DPPSP) would allow 
        greater flexibility to meet increased global demand and shorten 
        periods of low prices by reducing foreign competition in the 
        marketplace. Additionally, shifting resources from the Price 
        Support Program toward a new margin protection program would 
        provide farmers a more effective safety net.
      As the Chairman and Ranking Member may recall, NMPF vigorously 
        defended the importance of the price support program, albeit 
        modified to make improvements in certain respects, in the 2008 
        Farm Bill process. But at the end of the day, it is clear that 
        the dairy product price support program is not the best use of 
        Federal resources to establish a safety net to help farmers 
        cope with periods of low prices and is not the most effective 
        way of achieving this goal.

      <bullet> The DPPSP reduces total demand for U.S. dairy products 
            and
              dampens our ability to export, while encouraging more 
            foreign im-
              ports into the U.S.

                The price support program effectively reduces U.S. 
                exports, by diverting some of our milk flow into 
                government warehouses, rather than to commercial buyers 
                in other nations. It creates a dynamic where it's 
                harder for the U.S. to be a consistent supplier of many 
                products, since sometimes we have products to export, 
                and at other times, we just sell our extra production 
                to the government.

      <bullet> The Program acts as a disincentive to product 
            innovation.

                It distorts what we produce, i.e., too much nonfat dry 
                milk, and not enough protein-standardized skim milk 
                powder and whole milk powder as well as specialty milk 
                proteins such as milk protein concentrate, that are in 
                demand both domestically and internationally. Because 
                the price support program is a blunt instrument that 
                will buy only nonfat dry milk--and because that's what 
                some plants have been built to produce, as opposed to 
                other forms of milk powder--it puts the U.S. at a 
                competitive disadvantage to other global dairy vendors.

      <bullet> DPPSP supports dairy farmers all around the world and 
            disadvan-
              tages U.S. dairy farmers.

                Further aggravating measures, the current program helps 
                balance world supplies, by encouraging the periodic 
                global surplus of milk products to be purchased by U.S. 
                taxpayers. Dairy farmers in other countries, 
                particularly the Oceania region, enjoy as much price 
                protection from the DPPSP as our own farmers. Without 
                USDA's CCC buying up an occasional surplus of dairy 
                proteins in the form of nonfat dry milk, a temporarily 
                lower world price would affect our competitors--all of 
                whom would be forced to adjust their production 
                downward--and ultimately hasten a global recovery in 
                prices.

      <bullet> The DPPSP isn't effectively managed to fulfill its 
            objectives.

                Although the DPPSP has a standing offer to purchase 
                butter, cheese and nonfat dry milk, during the past 12 
                years, only the last of that trio has been sold to the 
                USDA in any significant quantity. In essence, the 
                product that the DPPSP really supports is nonfat dry 
                milk. Even at times when the cheese price has sagged 
                well beneath the price support target, cheese makers 
                choose not to sell to the government for a variety of 
                logistical and marketing-related reasons, such as 
                overly restrictive packaging requirements. We have 
                tried to address these problems, but USDA has to date 
                been unwilling to account for the additional costs 
                required to sell to government specifications. Once 
                purchased, powder returning back to the market from 
                government storage also presents challenges, and can 
                dampen the recovery of prices as government stocks are 
                reduced.

      <bullet> The price levels it seeks to achieve aren't relevant to 
            farmers in
              2012.

                Even though the $9.90 per hundredweight milk price 
                target was eliminated in the last farm bill, the 
                individual product price support targets: $1.13/lb. for 
                block cheese, $0.85 for powder, and $1.05 for butter--
                essentially will return Class III and IV prices around 
                $10/cwt. But in an era of higher cost of production, 
                that minimal price isn't acceptable in any way, shape 
                or form.

      In summary, discontinuing the DPPSP would eventually result in 
        higher milk prices for U.S. dairy farmers. By focusing on 
        indemnifying against poor margins, rather than on a milk price 
        target that is clearly inadequate, we can create a more 
        relevant safety net that allows for quicker price adjustments, 
        reduced imports and greater exports. As a result of our DPPSP, 
        the U.S. has become the world's balancing plant--and dairy 
        suppliers in other countries know this all too well. As time 
        marches on, so, too, must our approach to helping U.S. farmers. 
        It is because of this that America's dairy producers and coops 
        are focused upon a transitional process that shifts the 
        resources previously invested in the dairy product price 
        support program and the MILC program, to a new producer income 
        protection program.

    2. Dairy Producer Margin Protection Program

      As mentioned above, existing safety net programs (the price 
        support program, and the MILC program) were created in a 
        different era. Neither was designed to function in a more 
        globalized market, where not just milk prices, but also feed 
        costs and energy expenses, are more volatile and trending 
        higher. In the future, the solvency of dairy farms will depend 
        more on margins than just the milk price alone. In order to 
        address this dilemma, dairy farmers and cooperatives are 
        supporting a revolutionary new program called the Dairy 
        Producer Margin Projection Program. It will help insure against 
        the type of margin squeeze farmers experienced not only in 
        2009, and also at other points in the past when milk prices 
        dropped, feed costs rose--or both conditions occurred in 
        tandem.
      In developing the Dairy Producer Marge Protection Program, a few 
        important principles have been followed:

      <bullet> Losses caused by either low milk prices or high feed 
            costs need to be cov-
              ered.

      <bullet> A farmer's cost for basic protection must be kept low or 
            nonexistent.

      <bullet> The level of protection available should be flexible, 
            and producers should
              be able to purchase a higher level of protection if they 
            choose.

      <bullet> The program should be voluntary, national in scope, and 
            open to all dairy
              farmers, regardless of size.

      <bullet> The program should not provide incentives to create 
            artificial over-produc-
              tion.

      <bullet> The program must be easy to access by all producers 
            through a simple ap-
              plication process or through the assistance of their 
            cooperative.

    3. Market Stabilization

      Farmers have worked together since 2003, through the Cooperatives 
        Working Together (CWT) program, to address both the supply and 
        the demand sides of the equation that ultimately determines 
        milk prices. But more is needed.
      The Dairy Security Act contains a market stabilization program 
        that prompts dairy farmers, only when absolutely needed, to 
        adjust their milk output during periods of low margins.
      To prevent steep and prolonged price declines--the likes of which 
        we suffered from literally every day in 2009--the stabilization 
        program encourages farmers to trim their milk output. This 
        allows supply and demand to more quickly align, prevents 
        dramatic price volatility, and avoids a prolonged l-margin 
        environment. It also contains provisions that would make the 
        program export-sensitive, meaning that if the U.S. risks losing 
        its share of world dairy sales because of a misalignment of 
        prices, the market stabilization program will trigger back out.
      And it's also important to remember that in the absence of the 
        price support program, U.S. and world milk prices will 
        naturally be in much greater alignment.
      Now, this type of system is not for everyone, and the best part 
        is, it's voluntary. Only those producers who opt for the margin 
        protection program would have to reduce their output. Those who 
        don't want any government safety net won't be subject to the 
        stabilization program.

    All of these potential changes will ultimately require a new way of 
thinking about dairy economics. The dairy farmers I know recognize 
something has to be done before all the farms are gone and if there is 
one lesson to be learned from 2009; it's that change is needed.
    Thank you again for your time and attention.

    The Chairman. Thank you.
    Mr. Verratti, when you're ready.

   STATEMENT OF JEREMY L. VERRATTI, DAIRY AND CROP PRODUCER, 
                VERRATTI FARMS, LLC, GASPORT, NY

    Mr. Verratti. Thank you. Good morning. My name is Jeremy 
Verratti. I'm a dairy and crop farmer from Gasport, New York, 
in Niagara County. I received my 4 year bachelors of science 
degree in business administration from the University of 
Buffalo. I'm a member of the Asset Liability Committee at 
Cornerstone Community Federal Credit Union and an active member 
of the Lockport Alliance Church. I have also been a leader of 
the Young Cooperators Program at our dairy cooperative, Upstate 
Niagara, along with my late wife, Stephanie, who passed away in 
a car accident a bit over a year ago.
    Members of the Committee, thank you for giving me this 
opportunity to testify about the future of family farms in 
America. The farm policies that guide your formulation of the 
2012 Farm Bill will have a major impact on sustaining family 
farms such as ours.
    We are a fourth generation farm called Verratti Farms. At 
the moment, my father Dan, my two brothers Daniel and Ben, and 
I support our families by working on our farm. To help all of 
our families do all of the work on the farm, we have seven 
full-time employees and about two part-time employees. We milk 
over 450 cows. This means that there about 50 cows to generate 
enough income for each family that is depending on our farm for 
their livelihood.
    Our farm's main source of income comes from milking cows. 
We feed our cows corn and hay that we grow on our own farm. In 
addition, we generate cash by selling some of our corn, 
soybeans and wheat. We grow these crops on about 1,400 acres of 
land that our farm owns and rents.
    Verratti Farms has been recognized as a dairy of 
distinction for 20 years and has won various awards for the 
high quality of milk we produce. Our farm has been a member of 
a cooperative for decades. As our cooperative has grown, so has 
the markets for our milk, both in terms of geography and in 
terms of the numbers and types of customer.
    For example, instead of just selling fluid milk to retail 
chains in western New York, as we did successfully for decades, 
nowadays our cooperative sells many different products 
throughout the United States and overseas. Among these products 
are traditional dairy products such as yogurt, cottage cheese, 
chip dip and ice cream mix as well as a number of shelf-stable 
innovative products such as sports drinks and dairy-based 
alcoholic beverages. It is essential that the 2012 Farm Bill 
help cooperatives and farms such as ours continue to benefit 
from these growing markets for dairy products in the United 
States and overseas.
    The package of ideas called Foundation for the Future 
achieves this goal and is the basis for the Dairy Security Act. 
The package of ideas set forth in Foundation For the Future is 
being supported by National Milk Producers Federation and many 
others including myself, Verratti Farms, and my cooperative, 
Upstate Niagara.
    In my brief time with you today, I want to emphasize one of 
the essential policies advocated by the Foundation for the 
Future that should guide your formulation of the 2012 Farm Bill 
sustaining family farms such as Verratti Farms.
    Why do I care so much about sustaining family farms? Our 
farm in Gasport is now supporting its fourth generation of 
Verrattis. We want to stay dairy farmers and we want to stay in 
Gasport. Not only is western New York our home and a great 
place to live, but our family is heavily invested financially 
and emotionally in this farm that has been our home for 75 
years.
    Financially, here are some of the keys to sustaining family 
farms: In the long run, the price level of milk depends on 
demand growing for dairy products in the United States and 
overseas. But in the short run, from time to time, there are 
bumps in the road in pricing that cause great financial and 
emotional stress on family farms. Sometimes these bumps are the 
price we are paid for our milk, sometimes these bumps are the 
price we must pay for feed, fuel and fertilizer.
    A key part of the Foundation for the Future is to focus on 
the margin between milk prices and input cost such as feed. 
Margin insurance that is promoted and partially subsidized by 
the Federal Government would be very helpful in weathering 
these bumps in the road that disrupts normal market pricing. In 
fact, sometimes, as in 2009, these bumps are more like a 
boulder in the field you're plowing, a seismic shake, or even a 
widespread earthquake that threatens the foundation of an 
entire industry. As a young dairy producer, I will never forget 
the financial hardship of 2009.
    However, sustaining family farms is more than a matter of 
good financial policy. Sustaining family farms is a matter of 
good public policy in the broadest sense of the term. We must 
work to keep our farms in the communities they are in and we 
must do it now.
    Being widowed at the age of 26 changed my view of life and 
time. Time is short. God gives us days to work as farmers and 
He gives us days to work as elected officials. However, none of 
us knows how long that particular opportunity will present 
itself.
    I want to marry again, have children, and be able to raise 
those children around the farm. Members of this Committee, 
please move forward with meaningful change so that I may 
realize these dreams. Thank you for your time and attention.
    [The prepared statement of Mr. Verratti follows:]

  Prepared Statement of Jeremy L. Verratti, Dairy and Crop Producer, 
                    Verratti Farms, LLC, Gasport, NY
    My name is Jeremy Verratti. I am a dairy and crop farmer from 
Gasport, New York near Lockport.
    I received my 4 year Bachelor's of Science Degree in Business 
Administration from the University at Buffalo. I am a member of the 
Asset Liability Committee (ALCO) at Cornerstone Community Federal 
Credit Union and an active member of the Lockport Alliance Church.
    I have also been a leader of the Young Cooperators program at our 
dairy cooperative, Upstate Niagara, along with my late wife, Stephanie, 
who passed away in a car accident a bit over a year ago.
    Members of the Committee, thank you for giving me this opportunity 
to testify about the future of family farms in America. The farm 
policies that guide your formulation of the 2012 Farm Bill will have a 
major impact on sustaining family farms such as ours.
    We are a fourth generation farm, called Verratti Farms. At the 
moment, my father (Dan), my two brothers (Daniel and Ben), and I 
support our families by working on our farm. To help our families do 
all of the work on the farm, we have seven full-time employees and 
about two part-time employees.
    We milk over 450 cows. This means that there are about 50 cows to 
generate enough income for each family that is depending on our farm 
for their livelihood.
    Our farm's main source of income comes from milking cows. We feed 
our cows corn and hay that we grow on our own farm. In addition, we 
generate cash by selling some of our corn, soybeans and wheat. We grow 
these crops on about 400 acres of land that our farm owns and about 
1,000 acres of land that we rent.
    Verratti Farms has been recognized as a Dairy of Distinction for 20 
years and has won various awards for the high quality milk we produce.
    Our farm has been a member of a cooperative for decades. As our 
cooperative has grown, so have the markets for our milk--both in terms 
of geography and in terms of the numbers and types of customers.
    For example, instead of just selling fluid milk to retail chains in 
western New York as we did successfully for decades, nowadays our 
cooperative sells many different products throughout the United States 
and overseas. Among these products are traditional dairy products such 
as yogurt, cottage cheese, chip dip, and ice cream mix, as well as a 
number of shelf stable, innovative products such as sports drinks and 
dairy-based alcoholic beverages.
    It is essential that the 2012 Farm Bill help cooperatives and farms 
such as ours continue to benefit from these growing markets for dairy 
products in the United States and overseas. The package of ideas called 
``Foundation for the Future'' achieves this goal and is the basis for 
the Dairy Security Act.
    The package of ideas set forth in Foundation for the Future is 
being supported by National Milk Producers Federation and many others, 
including myself, Verratti Farms, and my cooperative, Upstate Niagara.
    In my brief time with you today, I want to emphasize one of the 
essential policies advocated by Foundation for the Future that should 
guide your formulation of the 2012 Farm Bill--sustaining family farms 
such as Verratti Farms.
    Why do I care so much about sustaining family farms? Our farm in 
Gasport is now supporting its fourth generation of Verrattis. We want 
to stay dairy farmers. And we want to stay in Gasport. Not only is 
Western New York our home, and a great place to live, but our family is 
heavily invested financially and emotionally in this farm that has been 
our home for 75 years.
    Financially, here are some of the keys to sustaining family farms.
    In the long run, the price level for milk depends on demand growing 
for dairy products in the United States and overseas.
    But in the short run, from time to time there are bumps in the road 
in pricing that cause great financial and emotional stress on family 
farms. Sometimes these bumps are the price we are paid for our milk. 
Sometimes these bumps are the price we must pay for feed, fuel and 
fertilizer.
    A key part of Foundation for the Future is to focus on the margin 
between milk prices and input costs such as feed. Margin insurance that 
is promoted and partially subsidized by the Federal Government would be 
very helpful in weathering the bumps in the road that disrupt normal 
market pricing. In fact, sometimes (as in 2009) these ``bumps'' are 
more like a boulder in the field you're plowing, a small seismic shake, 
or even a widespread earthquake that threatens the foundation of an 
entire industry. As a young dairy producer, I will never forget the 
financial hardship of 2009.
    However, sustaining family farms is more than a matter of good 
financial policy. Sustaining family farms is a matter of good public 
policy in the broadest sense of the term. We must work to keep our 
farms in the communities they are in and we must do it now.
    Being widowed at the age of 26, changed my view of life and time. 
Time is short. God gives us days to work as farmers and he gives us 
days to work as elected officials. However, none of us knows how long 
that particular opportunity will present itself. I want to marry again, 
have children and be able to raise those children around the farm. 
Members of this Committee, please move forward with meaningful change 
so that I may realize these dreams.
    Thank you for your time and attention.

    The Chairman. Thank you, Mr. Verratti.
    Ms. Ledoux, whenever you're ready.

STATEMENT OF MICHELE E. LEDOUX, BEEF PRODUCER, ADIRONDACK BEEF 
                      COMPANY, CROGHAN, NY

    Ms. Ledoux. Good morning, Mr. Chairman, Congressman Gibson, 
Congressman Owens, my Congressmen, and Members of the 
Committee. My name is Michele Ledoux and I am a beef producer 
from Croghan, New York.
    Before I begin, I'd like to thank you for traveling to the 
North Country to hold this field hearing on the farm bill. Most 
people don't think of New York when they think of agriculture, 
but it is one of the state's most important industries.
    I'm particularly grateful that Congressman Owens and 
Congressman Gibson are Members of the Agriculture Committee, 
especially as Congress begins to rewrite the farm bill this 
year. They are an important voice for this region, where 
agriculture is the driving force of our local economy.
    I appreciate the opportunity to testify on issues related 
to the livestock industry in upstate New York. My farm, the 
Adirondack Beef Company, is located outside of Croghan. It's a 
small village that may be best known as home of the American 
Maple Museum. During this time of the year, you can see steam 
rising from many sugar houses in and around the village. 
Croghan is located in Lewis County which has twice as many cows 
as people, though most are dairy with only about 800 beef cows 
in the county. This is not surprising. Nationwide, New York is 
the third largest dairy state, but ranks 34th for cattle 
production.
    With my husband Steve, son Jake, daughter Camille, our 
extended family and partner Ralph Chase, we operate a natural 
beef operation. We have not used any antibiotics or growth 
promotants for the past 12 years. We run approximately 50 
shorthorn brood cows, with an Angus bull, as a cow/calf 
operation. We calve out in the spring, market the feeder calves 
in the winter, and finish some for the direct-to-consumer and 
restaurant markets.
    Our family also raises natural lamb and pork. Our children 
have their own egg-laying operations and meat-bird business. 
This diversity allows us to offer a selection of meat products 
that consumers want when we sell at the farmers' market.
    Our farm is a member of the Pride of New York Program, the 
New York State Beef Producers Association and Adirondack 
Harvest, all organizations that help us with branding, 
marketing and promotion of our products. Our children are 
involved in both the Lewis County 4-H Youth Program and the 
Beaver River FFA Program. We hope that they can stay on the 
farm, but know that agriculture is a tough business for young 
people who have many other opportunities. The policies that you 
enact in Washington this year will help determine whether my 
son can make his living as a family farmer.
    As an aside, my daughter wants to be a large-animal 
veterinarian, helping to fill a shortage of these professionals 
in upstate farm communities. As a beef producer, I'm delighted 
there will be a new veterinarian in the pipeline. For Camille's 
sake, I hope you keep reauthorizing the Veterinarian Medicine 
Loan Repayment Program until she's ready for it.
    In addition to running our farm, both my husband and I have 
full-time jobs in ag-related industries. Steve works for Shur-
Gain, an animal feed company, and I work for the local Cornell 
Cooperative Extension office, for the past 26 years, where I am 
currently the Executive Director of Lewis County.
    I want to make it clear that I am not testifying on behalf 
of Cornell University or Cornell Cooperative Extension system, 
but as an independent beef producer who happens to work for 
extension. My hands-on farm experience makes me a better 
extension agent because I know firsthand what educational 
programs, resources and support are most relevant and needed 
for beef producers in our region. This is important because the 
Continuing Education Programs offered through Cornell 
Cooperative Extension and the New York State Department of 
Agriculture and Markets help us maintain a quality operation 
and a competitive edge.
    For example, my family has completed the Masters of Beef 
Advocacy and the Beef Quality Assurance Certification Programs. 
We also work with our veterinarian, Dr. Deanna Fuller, to 
attain our status as a bovine viral diarrhea and Johne's-free 
herd through the New York State Cattle Health Assurance 
Program. This program, sponsored by Agriculture and Markets and 
managed by the New York State Animal Health Diagnostic 
Laboratory at Cornell, ensures that ours is a clean, certified 
herd. It goes without saying that the livestock and dairy 
industries rely on a comprehensive and well-funded animal 
health network that conducts routine surveillance, monitoring 
and research to protect our herds from outbreaks and emerging 
diseases.
    Research, Education and Extension Programs at land-grant 
universities like Cornell are among the several farm bill 
programs that are of critical importance to the New York 
livestock industry. Farmers' Market Programs, that direct to 
consumer market, is a very important source of income for us. 
Our farm sells at the Central New York Regional Farmers' Market 
in Syracuse, and we also are considering starting a Community-
Supported Ag Program to support our local sales.
    We found that our consumers are willing to pay a premium 
for our natural beef. The higher prices we receive in farmers' 
markets allows us to cover the added costs of producing beef by 
these methods. Grants from the Farmers' Market Promotion 
Program to the Farmers Market Federation of New York has helped 
us with training and joint marketing. It's also supported 
region groups working on CSA models. In addition, cooperative 
extension is involved in these efforts by providing direct 
marketing training, seminars and workshops to farmers who have 
no experience selling to consumers.
    The Farmers Market Nutrition Program is an important source 
of income and a critical resource in helping expand farmers' 
markets into new areas. New York State has the most successful 
FMNP Program in the country and should serve as a model for 
other states.
    I urge you to reauthorize and fully fund the FMNP Program 
for both seniors and for WIC families. As the demand for local 
food grows, farmers' markets and other forms of direct sales 
have helped increase the viability and profitability of many 
farms like mine. Reauthorization and expansion of these 
programs should be a top priority in the farm bill.
    The 2008 Farm Bill finally included Permanent Disaster 
Assistance Programs that should be included, should be 
continued in 2012. Farmers need some assurance of protection 
when a catastrophic disaster strikes. Ad hoc assistance is too 
uncertain, especially in the current budget environment in 
Washington, D.C., and the state, and often takes too long to 
access.
    We took advantage of Disaster Programs when a drought hit 
our farm a few years ago. New York State most recently had to 
deal with flooding from Hurricane Irene and Tropical Storm Lee 
last summer. While my farm was not affected, I know many 
producers in other parts of the state who lost entire crops 
including forage for their herds. The New York State Soil and 
Water Conservation District and Cornell Cooperative Extension 
office stepped in to provide help, information and resources to 
farmers and citizens.
    As a beef producer, I know that the Livestock Indemnity 
Program and the Emergency Livestock Assistant Program are the 
most useful programs for me if disaster strikes and should be 
reauthorized in the farm bill. Programs in the farm bill that 
help beginning farmers as they are getting established are 
important when you consider the nation's aging farmer base. 
These programs provide resources, training, education, and 
loans for new farmers.
    I think of Casey Nelsen, an animal science major in his 
junior year of college, who has been up to our farm for the 
experience. He is not from a farm background but wants to farm 
when he graduates. Without support of the Beginner Farmer 
Programs, his barriers to entry would be difficult for him to 
overcome.
    Through my work with cooperative extension, we have posted 
a Beef 101 series of workshops for beginner beef farmers in 
such basics as vaccinations, fencing, equipment, worming and 
feeding. It has been such a success that it's been replicated 
in other parts of the state. The 2008 Farm Bill made the 
Beginner Farmer Program a mandatory program to ensure that it 
received funding every year.
    As you know, all the mandatory programs are zeroed out in 
the President's 2013 budget because their authorization expires 
at the end of the current fiscal year. Extension and 
reauthorization of this program would help provide new farmers 
with the resources they need to get started. In addition, 
training programs provided through the formula-based programs 
like Smith-Lever for extension and Hatch for research are vital 
sources of information for beginner farmers.
    The Chairman. Can you summarize, Ms. Ledoux?
    Ms. Ledoux. If you'll indulge me, the Department of Labor's 
youth labor regulations are not technically part of the farm 
bill, but several Smith-Lever Programs, including the 4-H Youth 
Development and Youth Farm Safety touch on these issues, and I 
ask that you think about the fact that we need to keep young 
teenagers participating in education and training to address 
these safety issues and those are very important. Thank you.
    [The prepared statement of Ms. Ledoux follows:]

Prepared Statement of Michele E. Ledoux, Beef Producer, Adirondack Beef 
                          Company, Croghan, NY
    Good morning, Mr. Chairman, Mr. Peterson, Congressman Gibson, 
Congressman Owens--my Congressman--and Members of the Committee. My 
name is Michele Ledoux. I am a beef producer from Croghan, New York. 
Before I begin, I'd like to thank you for traveling to the North 
Country to hold this field hearing on the farm bill--most people don't 
think of New York when they think of agriculture, but it is one of the 
state's most important industries. I am particularly grateful that 
Congressman Owens and Congressman Gibson are Members of the Agriculture 
Committee, especially as Congress begins to rewrite the farm bill this 
year. They are an important voice for this region, where agriculture is 
the driving force of our local economy. I appreciate the opportunity to 
testify on issues related to the livestock industry in Upstate New 
York.
    My farm--the Adirondack Beef Company--is located outside of 
Croghan, a small village that may be best known as the home of the 
American Maple Museum. During this time of the year, you can see steam 
rising from the many sugarhouses in and around the village. Croghan is 
located in Lewis County, which has twice as many cows as people--though 
most are dairy, with only about 800 hundred beef cows. This is not 
surprising: nationwide, New York is the third largest dairy state, but 
ranks 34th for cattle production.
    With my husband Steve, son Jake, daughter Camille, our extended 
family, and partner Ralph Chase, we operate a natural beef operation. 
We have not used any antibiotics or growth promotants for the past 12 
years. We run approximately 50 Shorthorn brood cows with an Angus bull 
as a cow/calf operation. We calve out in the spring, market the feeder 
calves in the winter, and finish some for the direct-to-consumer and 
restaurant markets. Our family also raises natural lamb and pork. Our 
children have their own egg laying operation and meat bird business. 
This diversity allows us to offer a selection of meat products that 
consumers want when we sell at farmers' markets.
    Our farm is a member of the Pride of New York program, the New York 
State Beef Producers Association, and Adirondack Harvest--all 
organizations that help us with branding, marketing, and promotion of 
our products. Our children are involved in both the Lewis County 4-H 
Youth Program and the Beaver River FFA Program. We hope that they can 
stay on the farm, but know that agriculture is a tough business for 
young people who have many other opportunities. The policies that you 
enact in Washington this year will help determine whether my son can 
make his living as a family farmer. As an aside, my daughter wants to 
be a large animal veterinarian, helping to fill a shortage of these 
professionals in Upstate farm communities. As a beef producer, I'm 
delighted that there will be a new veterinarian in the pipeline. For 
Camille's sake, I hope you keep reauthorizing the Veterinary Medicine 
Loan Repayment Program until she's ready for it!
    In addition to running our farm, both my husband and I have full 
time jobs in agriculture-related industries. Steve works for Shur-Gain, 
an animal feed company, and I have worked for the local Cornell 
Cooperative Extension office for the past 26 years, where I am 
currently Executive Director of the Lewis County office. I want to make 
it clear that I am not testifying on behalf of Cornell University or 
the Cornell Cooperative Extension System, but as an independent beef 
producer who happens to work for Extension. My ``hands on'' farm 
experience makes me a better Extension agent, because I know firsthand 
what educational programs, resources, and support are most relevant and 
needed for beef producers in our region. This is important because the 
continuing education programs offered through Cornell Cooperative 
Extension and the NY State Department of Agriculture & Markets help us 
maintain a quality operation and a competitive edge.
    For example, my family and I have completed the Master of Beef 
Advocacy and the Beef Quality Assurance Certification programs. We also 
work with our veterinarian, Dr. Deanna Fuller, to attain our status as 
a Bovine Viral Diarrhea- and Johnes-Free Herd through the New York 
State Cattle Health Assurance Program. This program, sponsored by 
Agriculture & Markets and managed by the New York State Animal Health 
Diagnostic Laboratory at Cornell, ensures that ours is a clean, 
certified herd. It goes without saying that the livestock and dairy 
industries rely on a comprehensive and well-funded animal health 
network that conducts routine surveillance, monitoring, and research to 
protect our herds from outbreaks and emerging diseases.
    Research, education, and extension programs at land-grant 
universities like Cornell are among several farm bill programs that are 
of critical importance to the New York livestock industry. Let me tell 
you about some others:
    Farmers Market Promotion Programs. The direct-to-consumer market is 
a very important source of income for us. Our farm sells at the Central 
New York Regional Farmers Market in Syracuse, and we are also 
considering starting a Community Support Agriculture (CSA) program to 
improve our local sales. We've found that our customers are willing to 
pay a premium for our natural beef.
    The higher prices we receive in farmers markets allow us to cover 
the added costs of producing beef by these methods.
    Grants from the Farmers Market Promotion Program to the Farmers 
Market Federation of New York have helped us with training and joint 
marketing; they have also supported regional groups working on CSA 
models. In addition, Cooperative Extension is involved in these efforts 
by providing direct marketing training, seminars, and workshops to 
farmers who have no experience selling to consumers. The Farmers Market 
Nutrition Programs is an important source of income and a critical 
resource in helping expand farmers' markets into new areas. New York 
State has the most successful FMNP program in the country, and should 
serve as a model for other states. I urge you to reauthorize and fully 
fund the FMNP program for both Seniors and for WIC families. As the 
demand for local food grows, farmers markets and other forms of direct 
sales have helped increase the viability and profitability of many 
farms like mine. Reauthorization and expansion of these programs should 
be a top priority in the farm bill.
    Disaster Assistance Programs. The 2008 Farm Bill finally included 
permanent disaster assistance programs that should be continued in 
2012. Farmers need some assurance of protection when a catastrophic 
disaster strikes. Ad hoc assistance is too uncertain--especially in the 
current budget environments in Washington DC and the states--and often 
takes too long to access. We took advantage of disaster programs when a 
drought hit our farm a few years ago. New York State most recently had 
to deal with flooding from Hurricane Irene and Tropical Storm Lee last 
summer. While my farm was not affected, I know many producers in other 
parts of the state who lost entire crops, including forage for their 
herds. The New York State Soil and Water Conservation Districts and 
Cornell Cooperative Extension offices stepped in to provide help, 
information, and resources to farmers and citizens. As a beef producer, 
I know that the Livestock Indemnity Program (LIP) and Emergency 
Livestock Assistance Program (ELAP) are the most useful programs for 
me--if disaster strikes--and should be reauthorized in the farm bill.
    Beginning Farmer Programs. Programs in the farm bill that help 
beginning farmers as they are getting established are important, when 
you consider the nations' aging farmer base. These programs provide 
resources, training, education, and loans for new farmers. I think of 
Casey Nelsen, an animal science major in his junior year of college, 
who has been up to help on our farm for the ``experience.'' He is not 
from a farm background, but wants to farm when he graduates. Without 
the support of the beginning farmer programs, the barriers to entry 
would be difficult for him to overcome. Through my work with 
Cooperative Extension, we have hosted a ``Beef 101'' series of 
workshops for beginner beef farmers on such basics as vaccinations, 
fencing, equipment, worming, and feeding. It has been such a success 
that it is being replicated in other parts of the state.
    The 2008 Farm Bill made the Beginning Farmer program a mandatory 
program, to ensure that it received funding every year. As you know, 
all the mandatory programs are ``zeroed-out'' in the President's 2013 
budget because their authorization expires at the end of the current 
fiscal year. Extension and reauthorization of this program will help 
provide new farmers with the resources they need to get started. In 
addition, training programs provided through the formula-based programs 
like Smith-Lever for extension and Hatch for research, are vital 
sources of information for beginning farmers.
    Country-of-Origin Labeling. Country-of-Origin Labeling (``COOL'') 
is an important program for both livestock producers and consumers. In 
my experience with direct sales, people want to know where their food 
comes from, to be sure that it is safe and healthy. Since the World 
Trade Organization has ruled that COOL requirements for beef and pork 
are not WTO-compliant, USDA needs to write rules that preserve the 
intent of COOL while conforming to our international trade agreements. 
We know that it is possible for COOL to be WTO-compliant, because other 
countries have successfully instituted COOL programs. Even apart from 
the farm bill, it is important that Congress instruct USDA to fix the 
problems with the U.S. system as soon as possible, so that producers 
across the country aren't harmed by retaliatory tariffs from Canada and 
Mexico.
    Youth Labor Regulations. Although the Department of Labor's youth 
labor regulations are not technically part of the farm bill, several 
Smith-Lever programs--including 4-H Youth Development and Youth Farm 
Safety--touch on these issues. If you will indulge me, I would like to 
tell you that the Labor Department's recent proposal to change the 
youth agricultural labor regulations threatens the operations of family 
farms. Youth safety on farms--because of the Smith-Lever programs I 
mentioned--has been improving.
    The DOL's proposal, however, cuts at the heart of family tradition 
by preventing young people from working on their family's farm. My 
children have been in the barn with us doing chores and learning 
responsibility since they were young. We have taught them how to work 
safely around machines and animals, so that they have grown up to be as 
safety-conscious as my husband and I. As a farm mother, I can tell you 
that the best way to ensure a future generation of farmers is to teach 
them safety while they are young, so that it becomes a lifelong habit.
    DOL's proposal, however, will prevent young teenagers from 
participating in the education and training programs that have been 
developed specifically to address safety issues. For example, the 
Cornell Cooperative Extension 4-H program sponsors a Tractor Safety 
Program each spring in many New York counties to teach young teenagers 
how to operate farm equipment safely. My 15 year old son will be taking 
the program this year. These are the kinds of educational programs that 
need to be supported and continued.
    Conclusion. In conclusion, I know that you will be faced with many 
difficult decisions as you write the farm bill this year. Mr. Chairman, 
I'd like to thank you and the Committee--especially Mr. Owens and Mr. 
Gibson--for giving me the chance to tell you about some of the programs 
that have helped my family and me run a successful beef operation in 
Upstate New York. I hope that you will take these views into 
consideration as you move forward.
    I would be please to answer any questions you have.

    The Chairman. Thank you.
    I now recognize myself for 5 minutes.
    Probably a good way to start this give-and-take questioning 
is to observe something that really comes clear in Ms. Ledoux's 
comments, and that is the challenges of the budget process.
    If we just were to extend the existing farm bill for 
another 5 years, we would be about $9 billion short. In the way 
the previous farm bill was put together, there was not a 
permanent stream of funding for all programs, as she correctly 
noted, and a number of those programs are not funded, even if 
the authorization is in force, we have that challenge.
    We also will be spending less money on the next farm bill, 
whether it's the $23 billion reduction in spending compared to 
the previous farm bill that was agreed to by the principals of 
the Agriculture and Senate Committee or the President's $32 
million proposed reduction, or the $40+ billion reduction 
suggested last year by the House Budget Committee, we'll have 
less money to spend. So that makes our challenges tougher 
trying to be responsible and keep the good things.
    That said, I must note, Ms. Ledoux, I'm always happy to see 
a fellow shorthorn producer, someone who is working also very 
hard to address some of the diseases and genetic issues, not 
just within our breed but within all breeds. That's responsible 
stewardship and that's part of our responsibilities.
    I would first start by asking this question, and my 
colleagues who served on these panels with me for a number of 
years know that by my nature as an ag economist, a western 
Okie, there are a few fundamental things I'm always very 
curious about. Can you tell me, for just a moment, about land 
prices in your particular areas, the farmland? Up, down, 
sideways, it's all being bought by developers? Just a quick 
observation.
    Mr. Ooms. Well, I'm in Kinderhook, which is just south of 
Albany. I can be parked at the Statue of Liberty in 2 hours on 
a Sunday morning.
    The Chairman. Oh, my goodness.
    Mr. Ooms. Land prices are down in our area, but land and 
farm land are not necessarily the same thing. But farm land 
that's developable is way down and some farm land, a good tract 
of farm land in our neighborhood, beautiful, it's great soil, 
about 80 percent tillable, went for $4,500 an acre. And there 
is some other land, if it's preserved and the development 
rights extinguished, you're talking between a $1,000 and $2,000 
an acre. That's what I would pay. I don't know exactly what 
others would pay. So, but land values are down because that 
$4,500 in 2008 would have been--$10,000 would have been pretty 
much in the ball park.
    The Chairman. Anyone else wish to comment?
    Mr. Rea. I'd like to make a comment. It depends pretty 
specifically on the region. We have an area just 30 miles away 
where it seems to be quite popular to have a lot of horse 
farms, and it's certainly escalated the value of land there. 
Our land right in our particular Washington County is pretty 
stable. We've--we've purchased farm land for about the same 
price recently as we did 10 years ago.
    Mr. Verratti. Not a lot of development pressure, but I know 
in our neck of the woods, in Niagara County, open ag land is 
limited. So open agriculture land, the rents are on their way 
up. As far as the prices in our particular county for purchase, 
they range between $2,000 and $3,000, depending on the quality 
of the acreage, but seem to be heading up in correlation with 
soybean and corn prices.
    Ms. Ledoux. Obviously, I'm in a more rural county, and it's 
about $800 to $1,000 for tillable land.
    The Chairman. Fair enough.
    For those of you who deal with the crop side of the 
equation, and we'll talk about dairy in just a moment, tell me 
your opinions, your observations about what you hear in regards 
to how present crop insurance works and where you'd like to go 
on the crop side.
    Mr. Ooms. Personal--personal opinion, we signed up for the 
catastrophic coverage that FSA requires and maybe someday we'll 
figure out the rest of it. So we don't really worry about it.
    The Chairman. Understandable answer. Yes.
    Mr. Rea. We have not used crop insurance in the past just 
because there would have to be a catastrophic loss to get a 
third of what you would lose, and we just haven't thought that 
that was a fair exchange for the premiums.
    Mr. Verratti. We do--the premiums seem to be cheap enough 
for us for catastrophic--the cat insurance that we have been 
signing up for it. Actually, particularly this year, roughly 2 
weeks ago, we had a crop insurance rep come in from ADM, and we 
are looking at it. It seems to be, because of the subsidy on 
that crop insurance, it seems to be very reasonable and at some 
lower reasonable levels for production on the crops side, we 
are looking at going in that direction.
    As far as the other sort of programs and payments, direct 
and countercyclical payments, not a big deal. They seem to be a 
drop in the bucket in the grand scheme of things with the 
increase in crop income. They don't seem to be very effective. 
It's money, we'll take it, but it's not a game changer.
    The Chairman. With that, my time has expired. I would now 
recognize the gentleman from Georgia, Mr. Scott, for 5 minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman, and 
let me just say that each of your testimony has been very, very 
interesting and very, very informative.
    I'd like to touch upon a couple of areas that I'm equally 
vitally concerned about, and that is the threats to our family 
farms. And I think each of you are certainly, you Mr. Verratti 
and Ms. Ledoux, I hope I pronounced that right, mentioned that. 
What are the one or two major threats that you see right now to 
the existence of our family farms? I think you went into a 
couple of those, but just for the record.
    Mr. Verratti. I'll go ahead and go first. That's a great 
question, Congressman Scott. I would say the two top for me 
would be milk pricing, which I addressed in my testimony. More 
specifically, the margin between your--the income from the milk 
and the expenses. I do the books. I'm kind of the account 
manager at the farm, which sometimes has caused me to grind my 
teeth, but it's been a generally good experience. But you're 
always going to have your labor and--and your feed at the very 
top of your expenses, so that's why there's so much discussion 
between the income from milk and the cost of feed. That margin 
is very, very important.
    Second thing would be regulation. I'd like to see less 
regulation on small businesses in general in this country, 
especially farms. For us specifically, we put a lot of money 
last year into CAFO, getting ourselves in line as far as 
regulations between manure quality, manure water quality, and 
these types of things.
    And I just want to continue to make the point that dairy 
farmers and farmers in general were the original recyclers. We 
invented sustainability, if I dare say so myself. We take a 
not-so-nice product from the back end of a cow and reuse it and 
make crops and--and move forward that way. And it's an 
important thing and I don't want to see that stifled by high, 
high amounts of regulation.
    Mr. David Scott of Georgia. Let me ask you real quickly 
about the Labor Department's proposed regulation dealing with 
child labor, I know that they put a parental exemption into it. 
Tell me what effect would this regulation, this new rule by the 
Labor Department regulating child labor affect a family farm?
    Mr. Verratti. It would definitely affect it. You saw in my 
testimony I look forward to raising my kids, God willing, on 
the farm. I was raised, I worked on the farm, I lived right on 
the farm since--my entire life. I would love to see that 
regulation go away just because I think it's a great way to 
train kids how to work, and to show them the business and to 
teach them a great work ethic.
    Mr. David Scott of Georgia. Now one of the things that 
we're looking at in this new farm bill is to be able to, in 
addition to our research grants that we give to our 
universities and colleges, that we can put some language in 
there that would allow some of this money to go into 
scholarships to give the young people who would go into 
agriculture related areas, which I think would be very helpful. 
Would that be helpful?
    Mr. Verratti. That would be fantastic, sir. I would love 
that.
    Mr. David Scott of Georgia. And before my time goes up, Ms. 
Ledoux, you--you--you made an interesting comment of you don't 
use antibiotics.
    Ms. Ledoux. Correct.
    Mr. David Scott of Georgia. And what's the result of that? 
That's--I mean, how do you treat your sick animals?
    Ms. Ledoux. First of all, we run a--a Vaccination Program 
for our animals, so we are--just like you would vaccinate your 
children, we vaccinate our cows. And so we have been very 
fortunate, that we look at our animals. We see them every day. 
And if we do have an animal that is sick, we will treat it with 
antibiotics, but we pull it out of the general population. And 
so it's not something that we would sell to our consumers.
    Mr. David Scott of Georgia. So----
    Ms. Ledoux. So I would not let that animal die----
    Mr. David Scott of Georgia. Right.
    Ms. Ledoux.--if it needed antibiotics.
    Mr. David Scott of Georgia. Well, I get a feeling that you 
may sense that there's something wrong with using antibiotics?
    Ms. Ledoux. No, absolutely not. I think, you know what? 
Everybody needs to do what is good for them. Our consumers 
would prefer animals that are antibiotic-free and no growth 
hormones.
    Mr. David Scott of Georgia. Right.
    Ms. Ledoux. And so that meets our consumers that we deal 
with. There's nothing wrong with using antibiotics.
    Mr. David Scott of Georgia. Very good. And Mr. Ooms, you 
mentioned in your testimony about EQIP, which I think is an 
extraordinarily important program that we've got to give 
incentives to ranchers and farmers so that we can keep the 
animal waste out of our rivers and streams.
    What impact do you believe would have if we cut--because 
there is a feeling in the new farm bill, as the Chairman 
mentioned, budgetary--and I mentioned in my opening comments, 
budgetary restraints, and there's a uniform figure maybe we 
have to cut things by ten percent. What would cutting the 
incentives by ten percent, what effect would that have on this 
excellent program?
    Mr. Ooms. Sure. If I could just, I have a 4 year old and a 
2 year old, and when my--when I was a kid--as far as the 
Department of Labor regulations, when I was a kid, my dad would 
take me on a Massey-Harris 33 with just the steel fenders, and 
you held on for dear life.
    My 4 year old goes with me on our 4850 John Deere, which is 
a 30 year old tractor with a cab, and I wouldn't even dare to 
take him on the other tractor. According to the Department at 
Labor regulations, my kids could--I realize mine are really 
small. I'm probably not legal anyway. But--the point--the point 
is, that they couldn't be on any power--they couldn't use any 
power equipment. That's a big concern.
    As far as EQIP, on our farm, the reason why EQIP is great 
is because we have--we are--we milk 400 cows and therefore we 
are a medium-sized CAFO in New York. New York has some of the 
leading CAFO rules in the country, and we've done a lot of 
storage and management, nutrient management on our farm. And 
EQIP has helped pay for the cash investment, but we've had a 50 
percent sweat investment in what--and some cash of our own. We 
just wouldn't be able to do some of these things because we're 
protecting everyone's environment, it's everyone's investment. 
And while we want a good environment, some of these things are 
reasonable, but we talk about profitability all the time, that 
if we had profitability, then we wouldn't need EQIP.
    Mr. David Scott of Georgia. So the bottom line is a ten 
percent cut, if we did that, would have a very devastating 
impact?
    Mr. Ooms. Yes, and I consciously mentioned EQIP in my 
testimony, but not any other funding for that reason, because 
EQIP is important.
    The Chairman. The gentleman's time has expired. The chair 
now recognizes the gentleman from Virginia, Mr. Goodlatte, for 
5 minutes.
    Mr. Goodlatte. Thank you--thank you Mr. Chairman, and I 
want to thank you for bringing the Committee to this beautiful 
part of New York State and it's a pleasure to be here. When I 
was Chairman of the Committee, prior to the writing of the last 
farm bill, we held a hearing in New York, but it was much 
further west, in the Finger Lakes region, and so it's great to 
see this part of New York. And such a great turn out here, too. 
This is a really good response from folks interested in 
agriculture here in New York.
    I want to say that, as has already been said, the financial 
pressures on the Agriculture Committee, in fact on the entire 
Congress, with regard to our entire budget with the fourth year 
in a row now that we're going to have deficits in excess of a 
trillion dollars, will--of necessity mean that we will have 
fewer resources when we work on this farm bill. So I want to 
focus on some of the things that we can do that, either don't 
cost as much money or cost some money but replace programs that 
might cost a lot more.
    One of those areas was mentioned by Mr. Scott and was 
mentioned by Ms. Ledoux, and just a--a moment ago by Mr. Ooms, 
and that's regulatory issues. I just introduced this--this week 
legislation to halt the effort of the EPA that affects some 
parts of New York, again, further west from here, but also the 
other five states in the Chesapeake Bay watershed, which 
includes my district in the Shenandoah Valley of Virginia, from 
usurping power from the states and imposing mandatory 
regulations in an area where the states have made considerable 
progress in reducing sedimentation and phosphorus and nitrogen 
going into the Bay and attempting to replace that with mandates 
for which they've done no cost-benefit analysis and no effort 
to make sure that this will actually help the Bay in any 
significant way. Which we certainly want to the do, but not at 
the expense of, in the Commonwealth of Virginia, an estimated 
$16 billion in cost to the state, to localities, to farmers, to 
other businesses, home builders, and so on.
    All of that is very important as are some of the other 
regulations we talked about here. But we can't do some of those 
things in the farm bill, because of the fact jurisdiction, for 
example, with the Chesapeake Bay, rests primarily with other 
committees. So we'll be working with Members in those 
committees to push forward on that.
    But in the farm bill, I want to ask what each of you do 
with regard to risk management. What kind of risk management 
practices, if any, do you currently implement in your dairy 
operations, in your beef cattle operation?
    We'll start and go right down the room.
    Mr. Ooms. Well, like I said earlier, we--we have the 
catastrophic coverage just because it's so cheap and you have 
to do it to get any program of any--any kind. But essentially, 
what we do for risk management is we have our corn spread out 
over 12 miles, so therefore the rainfall--we basically self-
insure on that. And we always try to have a buffer of feed from 
year to year. And, for instance, this year we're selling less 
feed because we didn't have as much feed from last year.
    And I mentioned in my testimony building a dryer and grain 
storage. That's a cushion for our dairy farm. One of the things 
that, in the dairy industry, with higher feed prices, there's 
an opportunity for us in the Northeast to grow our own crops, 
because we have natural rainfall, so we self-insure.
    Mr. Goodlatte. Do you use the RMA's Livestock Gross Margin 
Program?
    Mr. Ooms. No. And the only--the--the honest answer is no. 
And the reason why not is because it's so--I've heard the 
horror stories about trying to get into it. There is some real 
opportunity there, but--we have friends that have been in line. 
I have a friend that's a broker. He has 40 clients he was 
trying to get it for. This is somebody who does it 
professionally. He had 40 people in line, he got number one and 
number two on his priority list and that was it. So we are 
interested in that, but we haven't bothered because----
    Mr. Goodlatte. Okay. If you would address that too, Mr. 
Rea, and we'll go right down the row here, but I'm only going 
to be able to ask because of----
    Mr. Rea. Sure. Thank you. For risk management, we do 
forward contracting with either fuel or grain, depending on 
what the market situation is. We also have had a program in the 
past with--through our cooperative where we could forward 
contract some of our milk, but as far as LGM, we've not used 
that. And we do not use the futures market on selling our milk.
    Mr. Verratti. We do forward contract some of our expenses 
as far as some of input cost on feed, also at some point fuel. 
And we have forward contracted with a small program just simply 
through our dairy cooperative on roughly ten percent of what we 
produce. We did that in 2009 and 2010.
    However, as far as the RMA's Livestock Gross Margin 
Insurance Program, the complexity is there and I--I'm a guy 
that likes computers. I'm 27. I'd love to watch markets all 
day, but I have a dairy farm to run. And some of this stuff--I 
don't feel like paying people high amounts of money to consult 
on these different things to figure these programs out. So if 
it's simple and the premiums are reasonable, I'll use it.
    Mr. Goodlatte. Ms. Ledoux?
    Ms. Ledoux. Obviously I talked about the Livestock 
Indemnity Program, the Emergency Livestock Assistance Program. 
And they're available for beef producers if they need them. And 
you know, we had a lot of issues here in New York State that 
happened this past summer, and Soil and Water, and Cooperative 
Extension was there to assist people.
    Mr. Goodlatte. Thank you. Thank you, Mr. Chairman.
    This area of insurance is very complex unfortunately, but 
it also is an area where, because you can have participation by 
both the government with some of the cost of it and the 
producer with some of the cost, it may well be the fairest way 
to spread risk over a wide area with a lot fewer resources 
moving ahead. So we're going to have to devote a lot of effort 
to making it work in a fairer and more open and, I would say 
simple, but I know how complex it is because each crop is 
different in each part of the county, and people raise 
livestock differently in different places and the weather 
conditions are different in different places. So it will be a 
real challenge, but I think that's where we need to focus.
    The Chairman. The gentleman's time has expired. The chair 
now recognizes the gentleman from New York, Mr. Owens, for 5 
minutes.
    Mr. Owens. Thank you, Mr. Chairman.
    I want to echo Mr. Goodlatte's comments, that I'm glad my 
colleagues have gotten to see such a beautiful part of the 
world as part of their farm bill hearing adventure for this 
year.
    Mr. Ooms, I have to say that your comment, ``import labor 
or import food,'' I think that that's an extraordinarily 
succinct description of the crisis that we face in the farm 
labor area, and we would certainly like to have your permission 
to use that on an ongoing basis.
    Mr. Ooms. It's not copyrighted.
    Mr. Owens. Thank you. Thank you.
    A question to Mr. Ooms and to Mr. Verratti. We've talked a 
little bit about issues related to regulation. My question is: 
How do we strike a balance between the regulatory issues and, 
if you will, preserving clean water and other environmental 
issues? It seems to me that that's where we should be trying to 
go, is to reach a balance, and I'm wondering if you have any 
specific suggestion that you could offer to us that would help 
us reach that balance?
    Mr. Ooms. Go first.
    Mr. Verratti. Make it simple. If we can keep the water 
clean, the manure where it should be, I think everybody will be 
happy.
    Mr. Owens. My question is: How do you do that? I really 
want to know what you would recommend to actually accomplish 
that goal?
    Mr. Verratti. You're very quickly going to get above my pay 
grade, but the--the programs that are here now, we are very 
close to CAFO compliant on our farm. That program seems to 
work. We seem to see the benefits of the implementation as far 
as keeping some of the runoff from our silage piles where it 
should be, keeping the manure where it should be and not mixing 
with rainwater, these types of things.
    But we need to be able to spread manure on our fields and 
use that as fertilizer, and we need to have a place to go with 
it. And we desire to see the water clean and a lot of the other 
resources clean, but the--the regulation that we hear rumors of 
seems to be way more than that. So I guess what I'm saying is, 
the way--the things we're seeing in New York, as far as this 
specific system, seem to be okay. Much more regulation, way 
beyond the money that we should be spending, is more than I 
want to pay for.
    Mr. Ooms. I personally think, and we've had the opportunity 
in New York to, out of necessity, we've worked with a lot of 
environmental organizations to try to find ways we can get to 
the same place, because everybody wants clean water. But 
everybody also needs to eat, okay? And there's a mentality--I 
won't get specific. There's a mentality in some places in 
Washington, at EPA, what the heck, that the environment is for 
the environment and then ag is for the ag guys. And the fact 
is, we live in the environment and we need the environment. We 
have to protect the environment.
    As far as specific issues, I'm not trying to shill for a 
specific program, but EQIP has worked because our nutrient 
management plan, our CAFO situation, we didn't have to do CAFO, 
but we're to the point, like Verratti's, we're getting to the 
point where we need to. We have a nutrient management plan. 
There's a lot of things that we were doing already, we just put 
them on paper.
    But the fact of the matter is now, we always learn things 
when you do these types of things, but it cost time and money 
and effort, and just working through that process has been 
great. So I would hold up EQIP just because it's something 
we've talked about already and it really has had--everyone has 
skin in the game.
    Mr. Owens. Thank you.
    Mr. Rea, you testified that dairy farmers support the Dairy 
Security Act in the range of 80 percent. I'm curious as to 
where that statistic comes from?
    Mr. Rea. National Milk Producers Federation represents 31 
dairy cooperatives, and we think that that's about 80 percent 
of the total U.S. supply of milk.
    Mr. Owens. And do you think that if that were implemented 
that that would in effect give adequate stability to milk 
prices?
    Mr. Rea. I think the market stabilization plan, we have to 
realize that we all, now, from the discussions this morning, 
that we in our own industries have to take active roles in how 
we see the future playing out. And I think if dairy farmers 
take an active role in stabilizing the market, then I think we 
can make this work.
    Certainly, it's a lot different than what we've been 
accustomed to, with paying premiums for the insurance program, 
but if we can make the stabilization part of it work, I think 
we can be successful. There are no rules in there that say you 
have to reduce your production, but one way or another, if we 
can't bring the market into a balance with the supply, then 
we're going to be facing issues that we faced in 2009.
    Mr. Owens. Does anyone on the panel have any contrary view? 
I want to see if there's anybody who fits in the 20 percent.
    Mr. Ooms. I would just say as long as the supply management 
portion is voluntary, it's up to that farm to figure out what 
they want to do. I have concerns if it's mandatory, though my 
family has no intention to milk more cows. But if it's 
voluntary, you're going to get a Margin Insurance Program 
that's going to be subsidized on some level. That's a carrot-
and-stick approach and seems like a reasonable middle ground.
    Mr. Verratti. So much focus has been on milk price and 
we've seen in various years price be pretty nice and yet 
expenses be well over that. So changing it from price focus to 
margin focus is a big, big part of the Dairy Security Act.
    Mr. Owens. Thank you.
    Ms. Ledoux, I'm sorry, but my time has expired. I yield 
back.
    The Chairman. The gentleman's time has expired. The chair 
now recognizes the gentleman from Texas, Mr. Conaway, for 5 
minutes.
    Mr. Conaway. Well, thanks, Mr. Chairman, and it's great to 
be here. I want to thank the Chamber of Commerce for last 
night's snow. You may not be all that keen on it. We've had 19 
inches in west Texas, which was stunningly unusual and I missed 
all of it. So it's great to see the 1 inch of snow out there. I 
appreciate being here.
    Mr. Verratti, I'm a CPA by background, and so your angst 
with the business side of it is understandable. If we go to a 
Margin Insurance Program, is there a standard definition of 
margin, and can you walk me through what you believe, each of 
you, what components go into margin, in determining that?
    Mr. Verratti. To me, it's between the milk price we're 
being paid and the expense below that. Now the common one is 
feed, because that's generally the top. The big 3--my two 
biggest expenses are, everyday in the dairy, are labor and 
feed. So that's why they generally use that--and my definition 
would be between feed and some of the other high expenses and 
between the actual milk price we're getting paid.
    Mr. Conaway. But what are some of those other high 
expenses? I mean, do you amortize or depreciate the cost of 
your equipment?
    Mr. Verratti. Yes, equipment is a big one. The big ones for 
us are--fuel is huge, and we know that's going to be even 
bigger this year. Fertilizer for our crops. We are cash 
cropping some, but remember a lot of that fertilizer is being 
used to grow crops to feed our dairy cows.
    Mr. Conaway. Now would you want the regulations to require 
that that be netted against your--your margins so that your--
Mr. Owens talked about complicating regulations and this gets 
complicated--trying to figure out how you insure a margin, if 
there's no common definition of margin among the industry.
    Mr. Verratti. The difficulty is going to be, sirs, when you 
get into places, like I--I have a good friend in Arizona. He's 
buying in a lot more feed than I am. I can grow a lot of my 
feed here.
    Mr. Conaway. Right.
    Mr. Verratti. So the difficulty is going to be when you go 
across the nation, the difficulties from state to state or from 
region to region.
    Feed is a pretty good one in that, excuse me, purchased 
feed, because everybody needs to feed their dairy cows. As far 
as fertilizer, fuel, some of these other expenses, some of 
these places aren't using feed and fertilizer, they're buying 
all their feed in a truckload.
    Mr. Conaway. Sure. I represent a bunch of processors as 
well, and so obviously there's push back from those guys who--
and they say they represent the consumer, those kind of things. 
So as we walk through this change in--in this policy, most of 
us on the dais have friends on both sides of this issue and we 
generally try to stick with our friends. And so that's as about 
as funny as a CPA is going to get.
    So as we walk this path, your relationship with your 
processors is going to be an important tool as well.
    A couple of you mentioned using forward contracting. The 
CFTC, of which our Committee has jurisdiction of oversight for, 
has recently been writing extensive rules to implement the 
Dodd-Frank Act that affects commodities. And have you yet been 
seeing an increase in your cost or lack of availability, or 
have your folks that you're working with been communicating to 
you at all about what the impact the CFTC's new regulations are 
having on your ability to manage risks with the forward 
contracts?
    Mr. Verratti. In regards to your first comment, I'm 
involved with both a co-op and a processor all in one, and I am 
willing to be your friend. Even though you're a CPA, I'm 
willing to be your friend.
    No, all kidding aside, as far as the--the fix forward 
pricing within our co-op, that was a free program. It was 
simply, I believe, somebody who wanted to purchase milk from 
our cooperative or processor, depending on how you look at the 
definition, at an even keel throughout the year, so that was 
not something as far as this--this Gross Margin Program that 
you're discussing, so I would have no premiums from that. This 
program seemed to be complex for me at the time.
    Mr. Conaway. Mr. Rea, you mentioned--I'm sorry, Mr. Rea, 
you mentioned you forward contracted as well. Any impact from 
the CFTC's new rules?
    Mr. Rea. No, I don't think that affects our forward 
contracting of corn or fuel, but I have seen no impact.
    Mr. Conaway. Well, it hasn't been implemented yet, so it's 
still just a proposal for the most part, and I didn't know if 
you had been warned yet about any increases in your cost of 
doing business?
    Mr. Rea. I have not.
    Mr. Conaway. Okay. Mr. Ooms?
    Mr. Ooms. I just said we self-insure, but we do forward 
contract fuel and feed. I thought you were talking about USDA 
programs earlier. And we haven't--the only thing I have heard, 
the only concern I've heard, is to make sure that we are 
looking at it from a basis of, we're using this product on our 
farm and there's some talk about having a reserve for whatever 
you forward contract. And our deal has always been, we contract 
our urea always in December for delivery sometime in the 
spring, usually March, April, May. And we pay it as we get it, 
cash on delivery.
    I've heard that there's some talk, and if I'm stepping into 
a highly, hot issue, so be it, some talk about us having to 
back whatever we book. That would be a concern because we book 
feed sometimes 13, 16 months out and we don't have the cash on 
hand to pay for it. The urea is a little different because it's 
for the coming year. But I think part of the key is if you're 
an end-user of product, let us use it.
    Mr. Conaway. Our Subcommittee, which has regulatory 
jurisdiction and the Chairman of the full Committee will try to 
make sure the end-users are not impacted by these new 
regulations.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman's time has expired. The chair 
now turns to the gentlelady from Maine, Ms. Pingree, for her 5 
minutes.
    Ms. Pingree. Thank you very much, Mr. Chairman, and thank 
you, too, Mr. Gibson and Mr. Owens, for welcoming us to their 
region of the country. And thank you all, really, for being 
here in this room and--and for all of the people who have come 
to testify. Really articulate, useful commentary for all of us, 
so thank you very much.
    I'm from Maine which has a small number of dairy producers, 
but pricing and margin issues are just as important to all of 
us and a huge concern, so I really appreciate the thoughts that 
you've brought to us today. But I want to address a slightly 
different issue. I'm interested in the local food and farming 
aspect of this.
    I've introduced a title to the farm bill. It's got about 70 
cosponsors, both--some on the Agriculture Committee, but a lot 
of people from around the country, all different regions, where 
people are seeing this huge growth in the interest in the 
market; both what consumers are interested in and then the 
opportunities available to farmers who sell more of their 
produce and dairy products and value-added products locally. So 
I want to address a few questions around that.
    I--as I said, I come from Maine, and because of this 
interest, we've seen the average age of our farmer going down 
and the number of farms and production growing up--going up. So 
to us it looks like a huge opportunity.
    I'll ask Ms. Ledoux a couple of questions, but if any of 
the rest of you are also interested in this, please feel free 
to comment.
    You mentioned in your testimony that you sell at the 
Central New York Regional Farmers' Market, but you're also 
considering starting a CSA, and that, for me, is particularly 
interesting. Can you tell us a little about some of the 
barriers that you face in your production in terms of scaling 
up? Are there other problems you deal with, with marketing 
chains or distribution networks in terms of expansion?
    Ms. Ledoux. We brand our meat in the sense that it's 
natural, and so we just decided that moving from doing the 
farmers' market, which has been great, but it ties up a 
Saturday. And so I have a 12 year old and a 15 year old at home 
who are very active on the farm, but we thought that the next 
step for us was to do a community supported ag, which would 
allow us to have them be involved in the farm, but not tie up 
every Saturday going to a farmers' market. And that's really 
why we felt the next move for us was to do the community 
supported ag.
    We have a good following down at the farmers' market down 
in Syracuse that are very interested in that, and they would 
like to have a steady supply of our meat and the other things 
that we could offer them, the eggs and things like that. So we 
just thought that was the next step up that worked out very 
well for our farm.
    Ms. Pingree. Anyone else on that?
    Mr. Ooms. Just about that you mentioned the Farmers' Market 
Nutrition Program, we have a lot of neighbors who participate 
and we are actually looking into the potential, being so close 
to New York City. That is always identified as something. It's 
just amazing how many people are using that to purchase food at 
markets. So I just know that from all my friends and neighbors 
who participate, that that is a key program.
    Ms. Pingree. Great. Great, certainly.
    Mr. Rea. I'd like to follow up a little bit. We're a little 
bit of a different animal, being a cooperative, but we've found 
the ability to have 1,200 of our members be farmer owned with 
our great Cabot brand and we get into stores with our farmers 
and they hand out samples. And we have a great relationship 
with our retailers, and it all comes from this farmer-owned and 
grassroots part of it.
    Mr. Verratti. Yes, and I would echo that. I love local--and 
people in our community that know me, that see me at church or 
at other organizations love to buy our product, talk to me 
about it, and I can educate on it--on it some, and--and it's a 
great relationship.
    Ms. Pingree. Thanks.
    Ms. Ledoux. And I guess if I was to follow up, people truly 
want to know where their food is coming from. They want to talk 
directly to that farmer. They want to look them in the face and 
they want to say, I bought this product from you. I want to 
know that you grew it or you raised it, and you took care of it 
from the beginning to where it was processed and--and brought 
that--you know, whatever that is, if it's a vegetable or it's 
meat, that they know that you were the one that was involved in 
it. And we can do that.
    Ms. Pingree. That's great. The chair mentioned that one of 
the big issues we're dealing with is budgetary constraints and 
what this new farm bill will look like. And I guess my 
particular interest is in figuring out, given the fact that 
this is where a lot of growth in the market is, where farmers 
are seeing huge opportunities, how do we make sure that some of 
the programs you've already been talking about, are there and 
available to farmers who want to expand into this market as 
we're sort of balancing out where our budgetary challenges are.
    So are there other things that you think, and I know some 
of them have already been mentioned today, even programs like 
EQIP or Farm Credit, are certainly critical, but in my brief 
time available, anything else you want to throw in there that 
you just think, when it comes to helping farmers sell more 
locally, is of great advantage?
    Ms. Ledoux. I mean, I guess I'm going--I'm going to put in 
my plug for Cooperative Extension and the Hatch Programs 
because they are directly working with farmers. They are 
directly out there talking with them. We are working with them, 
if it's telling them how to put in their vegetables, how to 
work with a small beef operation.
    I mean, the reality is most beef operations in the United 
States are 20 cows, and New York State lends itself to that 
size operations. They're talking to them about doing rotational 
grazing. They're talking with them about having a small 
livestock operation, whether it's sheep or hogs, and people 
want to get involved with that kind of direct marketing.
    Mr. Ooms. Applied research. Very simply, the Specialty Crop 
Block Grant is relatively new. It was an 2008 Farm Bill or the 
one before. And realize, you only have so much money in the 
world, you can't reinvent the wheel. But for future reference, 
I served on the New York Farm Viability Institute board and 
it's a farmer-led group that helps divvy up applied research 
dollars. And a lot of the grants that we're giving out are for 
new concepts or new ways even to help everyone though, but to 
help find new ways to skin the cat, I guess. So anything on 
applied research is always good because states have problems 
too.
    Ms. Pingree. Thanks. I think I'm out of time. Thank you.
    The Chairman. The gentlelady's time has expired. The chair 
now recognizes the gentleman from New York, Mr. Gibson, for 5 
minutes.
    Mr. Gibson. Thanks, Mr. Chairman, and I thank my colleagues 
for being here today and to say that this has been a very 
productive hearing already. In addition to what you've 
communicated this morning, we have detailed written statements 
from all of you and that's all going to be part of the record 
as we work through the farm bill for 2012, and I want to focus 
in on profitability.
    We've hit on this in a number of different dialogues, but 
I'd like to have the opportunity to get you on the record in 
some areas that I think would also potentially help with 
profitability. As I look at it--and of course I'm biased--I 
think we've got the smartest, hardest working farmers in the 
world.
    It's not an issue of knowledge. It's not an issue of work 
ethics. You guys work 24/7 and so we, I think it's incumbent 
upon us to really be looking at ways that we can ease the 
burden on you and to look to ways to facilitate your 
profitability. So let me throw out a few areas and then the 
panel can really just follow up. This is an opportunity to get 
you on the record.
    Regulations, specifically CAFO, if you have recommendations 
on how that might be revised. Conservation, tremendous way for 
us to balance, ensuring that we bequeath future generations an 
environment that we can be proud of at the same time that we're 
helping you with your profitability.
    We've mentioned EQIP here this morning. Might there be 
other ways to administer it? Is it best done in the NRCS or 
might we consider perhaps the FSA to administer that?
    We haven't talked too much about the Farmer-Rancher 
Protection Program, but I can tell you in our district this is 
really a valued program that has helped us on that score.
    Energy, are there ways--certainly we talked about margin, 
we talked about price for milk and how much you profit in the 
end, and energy has a certain component of this. And there have 
been programs, particularly with the photovoltaic and anaerobic 
digester, are these worthy and should we continue, and do you 
have recommendations on that end?
    Broadband, we're working really hard to expand rural 
broadband. Is that helping? And do you have recommendations on 
that? And finally, markets. Is there anything specific, 
creative ideas that you have that may help get your product out 
to other areas that, all of this inclining towards 
profitability. I'll throw that open to the panel.
    Mr. Rea. I'll take the first stab. Thank you for the 
question.
    Regulations, it just so happens that our farm is bumping 
right up against an area where we need to invest heavily in 
CAFO, and we are reluctant to do that and I think that's 
probably tempering our growth. You go from 200 cows to 201 
cows, all of a sudden you have to invest hundreds of thousands 
of dollars in--into the CAFO.
    If we could phase this in somehow, Congressman Gibson, to--
I mean, 20 cows isn't going to cover this cost of the CAFO, and 
we are in an area which, disappointing, has very little EQIP 
funds available. So everything has kind of taken on a new 
perspective when you have to pay for everything, whether you 
get any help or not through the government. And I'm not looking 
for help from the government, but I'm looking for ways where we 
can phase into this.
    We're seeing attrition in the dairy industry, so we know 
that we need to have increased production from farms that are 
going to be viable. And if there's a way we can kind of move 
into this, you know. We--we have dug a manure pit. We did it 
with our own excavator. And if you get 201 cows, you got to 
have an engineer that's going to engineer that manure pit. Our 
pit holds more, and you know, we need just a little common 
sense here as we go forward into it, because we would like to 
produce milk for the future and be profitable.
    Mr. Verratti. He's exactly right about, and I'll just talk 
about it, as far as CAFO. There's no doubt you're tempering 
growth with that--with that regulation just because it costs a 
lot more money, you get to certain sizes. I'm not sure what 
they are exactly, but I know that we're a medium CAFO, so we're 
going to have different regulations than--than Mr. Rea. So 
those regulations, all things shared, they cost money.
    So EQIP's a help, it's definitely--it's a program we've 
received money from. It's definitely a help. But it's difficult 
when you need such a large organization to ``bury'' some of 
those costs to be able to move on with productivity and 
profitability. So that's important.
    And you mentioned markets. I just think it's very important 
to allow us to continue to export as a nation. We need to be 
sending this milk overseas. We believe we have the most 
nutritious, best product in the world. And we want to be 
sending it out along with our--along with our discussion 
earlier about allowing it go to local markets also.
    Mr. Ooms. It's pretty--I try to answer questions, but that 
was pretty open-ended, so it's probably intended that way.
    I just want the panel to know that Congressman Gibson, 
before he was actually elected, said he wanted to spend time on 
a farm. And he's about, what, 3 miles from our place, so he 
came at quarter to 4:00 one morning and he ran the gamut. He 
milked cows and then he came back a couple months later 
because, he said, well, we milked cows with the machine, but I 
want to practice milking one manually because I'm in a cow 
milking contest. So we've got--I was going to bring the 
pictures for you, but we'll keep them for another time.
    As far as--I guess from my family's perspective is, we try 
to be reasonable. We try to work with people. And we have a 
Right To Farm Law in New York that says we have a right to farm 
in certain areas. That doesn't mean we have a right to do 
whatever we want. We still need to be a good neighbor. And I 
guess I just can't get over all the different regulations that 
come upon us.
    And the one that really gets me is: I make a choice to stay 
home on the farm. Somebody said earlier, they didn't get paid, 
I think it was the Chairman talking earlier about he didn't get 
paid until he went to work for someone else. And you know, I 
don't know if I should admit this or not, but I was 30 before I 
got paid on the farm. And it was only because I said to my dad, 
``Dad, I'm thinking about getting married here. So I'm going to 
be moving out. So I'm going to need to get paid.''
    And so my whole purpose of doing this was so I could--my 
kids could have the opportunities that I've had. And this is 
just one example. We are incorporated because that's just what 
makes sense for our business, so my kids legally couldn't work 
on the farm.
    Now, whoever is enforcing this, Hilda Solis can come and 
pry my kids out of the farm and barn all they want. We're going 
to do it until they do that. But just let us have the 
opportunity to be--and again, we want to work with the people. 
You mentioned--I could go on for hours.
    This is my last point, is: You mentioned the Chesapeake, 
the clean up of the Chesapeake, and see you're coming at it 
from a southern vantage point. I'll give the northern vantage 
point.
    Our New York State DEC, which we in ag and DEC don't always 
get along, it's saying to me, that we could remove all human 
life forms from the Chesapeake Bay area that New York--just 
covered in New York, I think it's 21 counties. It's a good 
swath. Not where I am. They could remove all human life form 
and the water still won't be clear, clean enough. You know, 
let's use a little common sense. And you know, again, none of 
us want dirty water, so I'll just--there you go.
    The Chairman. The gentleman's time has expired. The time 
for the first panel has expired. And I might note, Mr. Ooms, 
you could actually be an Okie if you want to come live with us 
some day too, by the way.
    Mr. Ooms. No way.
    The Chairman. With that, the Committee would like to thank 
the first panel for your insightful presentations and the 
questions and your answers, and you're dismissed. And we will 
ask the second panel to prepare to come forward.
    The Chairman. We will now hear from our second panel of 
witnesses.
    Mr. Eckhardt, whenever you're prepared, please begin.

 STATEMENT OF LARRY ECKHARDT, VEGETABLE, FIELD CROP, AND BEEF 
PRODUCER; PRESIDENT, KINDERHOOK CREEK FARM, INC., STEPHENTOWN, 
                               NY

    Mr. Eckhardt. Well, good morning, and thank you, Chairman 
Lucas, and other Members of the Committee for being here, and 
thank you for inviting me to offer some comments and ideas 
regarding the 2012 Farm Bill.
    My name is Larry Eckhardt, and I'm a farmer from 
Stephentown in Rensselaer County in eastern New York. I also 
provide crop consulting and planning services to farms in my 
area as a certified crop adviser.
    There are several pieces of the farm bill that are 
important to our farm and to vegetable growers in the state 
that I would like to highlight today.
    Some general farm bill concerns: The farms in our area, 
including our own farm, were hit really hard last year by 
tropical storms of the summer and fall. In trying to recover 
from this damage, I think it's important that the 2012 Farm 
Bill continue to include Permanent Disaster Assistance and 
Emergency Conservation Programs. These are very important to 
helping farmers recover after unimaginable disasters, whether 
through the replanting of trees, with the help of the Tree 
Assistance Program, or replacing soil and fixing fields that 
were washed away through help with the Emergency Conservation 
monies, ECP.
    We can't go back to ad hoc disaster assistance. Farmers 
need disaster assistance they can count on and which arrives in 
a timely manner. Programs that are sometimes years in getting 
financial assistance to farmers, like the SURE Program, are not 
very helpful in efforts and these types of programs would be 
better spent elsewhere.
    Conservation is also an important piece of the farm bill, 
and New York farmers have worked hard to meet extremely lofty 
Federal and state standards. As been said before, the 
Environmental Quality Incentives Program, EQIP, has provided 
critical funding and has helped leverage state and local monies 
to make sure farmers in the state continue to meet the ever 
increasing standards.
    During these difficult economic times, I know there are 
going to be cuts to the farm bill, so I think it's important 
for Congress to focus on its conservation efforts on working 
lands programs like EQIP and the Farm and Ranch Lands 
Protection Program. Over the other programs, like Land 
Retirement, keeping vital and productive lands in production 
and protecting the environment at the same time should be where 
goals, the goals where funds are limited.
    I would further suggest that the 2012 Farm Bill, that the 
role of NRCS be returned to its real and original purpose, and 
that's providing technical assistance to farmers for installing 
their needed practices, and leave the handling of the funding--
the funds for cost sharing the projects, to the FSA. NRCS 
personnel have time and again told me that they are not trained 
in administering the funding of conservation, they're trained 
to help farmers make conservation practices work. I agree and 
believe that the FSA is better trained in handling the funds 
for conservation programs.
    While mentioning FSA, I'd like to voice a strong opposition 
to the closing of local FSA offices in our region and around 
the country. These critical offices administer all the programs 
that are now in effect including insurance and other reporting 
and new requirements for farms to comply with programs. How can 
we do this with fewer offices and what little, if any, money is 
going to be saved? I'm all for saving, and I think everyone 
else is, but let's begin where it might make a difference. Not 
by eliminating the people and offices that, for us, are the 
front line, and for most real farmers are the real face of 
USDA.
    I move to some specialty crop specific concerns. New York 
is largely a state of dairy and specialty crops, and that's why 
it's important that the farm bill reflect the type of 
agriculture we have here in New York and around the Northeast. 
Specialty crops have been notoriously under-served in previous 
farm bill legislation and that's why it's so important that 
specialty crops was included in the 2008 Farm Bill and I hope 
will remain in the 2012 Farm Bill.
    The Specialty Crops Block Grants have been important to 
many farmers, both large and small, by supporting research, 
marketing and market development, and critical Pest Management 
Programs that help increase our profitability and our 
sustainability. The funds from other public sources for 
research and development in the area of specialty crops have 
been cut dramatically over the past 2 decades.
    These Specialty Crops Block Grants have made substantial 
contributions to new business development, new products, new 
and improved growing methods for the producers in New York. I 
hope for continued and perhaps increased funding for this 
important part of the new farm bill.
    I don't think it's any secret that crop insurance doesn't 
serve specialty crop farmers very well, especially not multi-
crop farms like my own. The devastating weather events of 2011 
have only served to highlight the need for some major changes 
in several areas.
    I would suggest a few ways for the farm bill to be more 
responsive to specialty crop risk management needs and they 
are: First, I'm not an economist or an actuary, I can only 
suggest some ideas for a crop insurance program that will meet 
our specialty crop needs. But we'll need to help the USDA 
figure out how to make them actuarially sound.
    I think Congress should instruct the USDA in the next farm 
bill to research and development with input from actual growers 
of specialty crops, risk management tools that will work more 
effectively for diverse crop farms. Being diversified helps 
manage our risks to a large degree, but as we saw last year, 
there are no options that work well in near complete or 
complete losses that help farmers get back on their feet.
    The Noninsured Disaster Assistance Program, known as NAP, 
is the only coverage offered for most nontraditional specialty 
crops. But in the event of a complete loss, it really only 
provides remuneration for \1/4\ or less of the lost crop. When 
there is a partial lost--loss in a crop, most often there is no 
coverage at all. There should be a buy up option so farmers can 
better protect themselves and manage their own risks.
    Although NAP is pretty cost effective, the record keeping 
can become overwhelming for farmers who have many crops, and on 
my case, maybe 30 or more. And record keeping should be 
streamlined so more farmers would participate and be eligible 
for disaster assistance programs. Other revisions such as sign 
up deadlines, acreage reporting, yield history, type of 
production, whether you're organic or conventional, multiple 
planting dates and training of loss adjusters would have to be 
addressed to make the program more appropriate for growers.
    And while we're talking about crop insurance, it seems it 
would just--we would pay less indemnification on insurance 
policies or NAP or at least more or would less frequently pay 
out if some of our rivers and streams were better maintained. 
We have seen extreme sediment deposits and obstructions in our 
many streams and tributaries caused by a lack of planned and 
routine care. Although allowing the trained NRCS staff to help 
farmers responsibly clear and shape these waterways to prevent 
widespread flooding, it would substantially benefit our farms 
and help mitigate the effects of the excessive rainfall in our 
communities in the future. This benefit can only be 
accomplished if the U.S. Corps of Engineers and the EPA are 
required to cooperate, perhaps through the 2012 Farm Bill.
    Some nutrition programs in the farm bill are also important 
to specialty crop farmers. The Fresh Fruit & Vegetable Snack 
Program for Schools and the Senior Farmers' Market Nutrition 
Program are two of the many programs that help link our farmers 
with the people who most need the access to fresh and healthy 
foods. Any program that supports local food purchases and helps 
develop new distribution networks will be a great benefit to 
both farmers like myself and the people who need the access to 
the food I grow.
    There are a number of provisions in the present farm bill 
for organic certification and research and is certainly an 
important piece of specialty crop agriculture, and I hope it 
continues. In this economy, I see many farmers using organic 
methods, but not able to spend enough money or commit the time 
to complete the certification. Instead, their focus, and that 
of many farms, has shifted to serving a market seeking out 
local foods.
    Whether it's certified organic, organically grown or grown 
conventionally, consumers want to know where their food is 
coming from and who grew those crops. Because of this, I think 
it's important for the 2012 Farm Bill to include funding for 
the programs that help all farmers who direct market, no matter 
what production techniques they use. This means developing food 
distribution networks, supporting the Farmers Market Promotion 
Program, supporting the food-based entrepreneurship programs 
and other grant opportunities. These programs help provide--
improve the vitality of all farms--family farms in the areas of 
the country.
    And finally, the proposed new regulations for food safety 
are due out soon and diversified farms like mine are concerned 
how this will change our business. Food safety begins on the 
farm and is certainly a primary concern on my farm. We work 
hard to ensure it every day in whatever way we can, but not 
knowing what is in these regulations and how hard it will be to 
comply with them scares me.
    If the farm bill can provide farmers assistance in meeting 
these new standards, whether with needed training on the ground 
assistance from USDA or tools to implement new procedures, this 
farm bill would certainly help in that effort.
    Thank you again for the invitation to speak today, and any 
questions, I would be happy to answer them.
    [The prepared statement of Mr. Eckhardt follows:]

 Prepared Statement of Larry Eckhardt, Vegetable, Field Crop, and Beef 
   Producer; President, Kinderhook Creek Farm, Inc., Stephentown, NY
    Chairman Lucas, Congressman Peterson, Congressman Owens, 
Congressman Gibson, and Members of the Committee, thank you for 
inviting me today to offer comments and ideas regarding the 2012 Farm 
Bill. My name is Larry Eckhardt and I'm a farmer from Stephentown, 
Rensselaer County, in Eastern New York State. I also provide crop 
consulting and planning services to farms in my area as a certified 
crop advisor.
    There are several pieces of the farm bill that are important to our 
farm and to the vegetable growers in the state that I would like to 
highlight for you today.
General Farm Bill Concerns
    The farms in our area, including our own farm, were really hit hard 
by the tropical storms of last summer and fall. In trying to recover 
from this damage, I think that it is important the 2012 Farm Bill 
continue to include permanent disaster assistance and emergency 
conservation programs.
    These are very important to helping farmers recover after an 
unimaginable disaster, whether through replanting trees with the help 
of the Tree Assistance Program (TAP) or replacing soil or fixing fields 
that were washed away through help from the Emergency Conservation 
Program monies (ECP). We can't go back to ad hoc disaster assistance; 
farmers need disaster assistance they can count on and which arrives in 
a timely manner. Programs that are sometimes years in getting financial 
assistance to farmers (like SURE) are not very helpful and the efforts 
in these types of programs would be better spent elsewhere.
    Conservation is an important piece of the farm bill and New York 
farmers have worked hard to meet extremely lofty Federal and state 
standards. The Environmental Quality Incentives Program (EQIP) has 
provided critical funding and has helped leverage state and local 
monies to make sure farmers in the state continue to meet ever-
increasing standards.
    During these difficult economic times, l know there will be cuts in 
the farm bill, so I think it is important for Congress to focus its 
conservation efforts on working lands programs, like EQIP and the Farm 
and Ranchland Protection Program, over the easement and land retirement 
type programs. Keeping vital and productive lands in production and 
protecting the environment at the same time should be our goals when 
funds are limited.
    I would further suggest for the 2012 Farm Bill that the role of 
NRCS be returned to its real and original purpose--providing technical 
assistance to farmers for installing needed practices--and leave the 
handling of the funds for cost-sharing these practices to FSA. NRCS 
personnel have time and again told me that they are not trained in 
administering the funding of conservation--they are trained to help 
farmers make conservation practices work. I agree and believe that FSA 
is better trained in handling the funds for conservation programs.
    While mentioning FSA, I'd like to voice strong opposition to 
closing local FSA offices in our region. These critical offices 
administer all the programs now in effect, insurance, reporting and any 
new requirements for farms to comply with programs--how can we do this 
with fewer offices? And what little, if any, money is saved? I'm all 
for saving, but let's begin where it might make a difference, not by 
eliminating the people and offices on the front lines, who, for most of 
the real farmers, are the face of the USDA.
Specialty Crop-Specific Concerns
    New York is largely a state of dairy and specialty crops, that's 
why it's important that the farm bill reflect the type of agriculture 
we have here in New York and the Northeast. Specialty crops have been 
notoriously under-served in previous farm bill legislation and that's 
why it was so important that a specialty crops title was included in 
the 2008 Farm Bill and I hope will remain in the 2012 Farm Bill.
    The Specialty Crops Block Grants have been important to many 
farmers, large and small, by supporting research, marketing and market 
development, and critical pest management programs that help increase 
our profitability and sustainability. The funds from other public 
sources for research and development in the area of specialty crops 
have been cut dramatically over the last 2 decades.
    These Specialty Crops Block Grants have made substantial 
contributions to new business development, new products and new and 
improved growing methods for producers in New York. I hope for 
continued, and perhaps, increased funding for this important part of 
the new farm bill.
    I don't think it's a secret that crop insurance doesn't serve 
specialty crop farmers well, especially not multi-crop farms like mine. 
The devastating weather events of 2011 have only served to highlight 
the need for some major changes in several areas. I would suggest a few 
ways for the farm bill to be more responsive to specialty crop risk 
management needs:

  <bullet> First, I'm not an economist or an actuary. I can only 
        suggest some ideas for a crop insurance program that will meet 
        our specialty crop needs, but we need the help of USDA to 
        figure out how to make them actuarially sound. I think Congress 
        should instruct the USDA in the next farm bill to research and 
        develop, with input from actual growers of specialty crops, 
        risk management tools that will work more effectively for 
        diverse crop farms. Being diversified helps manage our risk to 
        a large degree, but as we saw last year, there are no options 
        that work well in near complete or complete losses to help 
        farmers get back on their feet.

  <bullet> The Non-Insured Disaster Assistance Program (NAP) is the 
        only coverage offered for most nontraditional specialty crops, 
        but in the event of a complete loss, it really only provides 
        remuneration for a quarter or less of my lost crop. When there 
        is a partial loss, most often there is no coverage at all. 
        There should be a buy-up option so farmers can better protect 
        themselves and manage their individual risk. Although NAP is 
        pretty cost-effective, the record-keeping can become 
        overwhelming for farmers who have many crops--maybe 30 or 
        more--and recordkeeping should be streamlined so more farmers 
        would participate and be eligible for the disaster assistance 
        programs. Other revisions, such as sign-up deadlines, acreage 
        reporting, yield histories, type of production (organic or 
        conventional), multiple planting dates and training of loss 
        adjusters would have to be addressed to make the program more 
        appropriate for growers.

  <bullet> While we're talking about crop insurance, it just seems we 
        would have to pay less indemnification on insurance policies or 
        NAP, much less frequently, if some of our rivers and streams 
        were better maintained. We have seen extreme sediment deposits 
        and obstructions in many of our streams and tributaries caused 
        by the lack of planned, routine care. Allowing the trained NRCS 
        staff to help farmers responsibly clear and shape these 
        waterways to prevent widespread flooding, it would 
        substantially benefit our farms and help mitigate the effects 
        of excessive rainfall on all our communities in the future. 
        This benefit can only be accomplished if the U.S. Army Corp of 
        Engineers and the EPA are required to cooperate, perhaps thru 
        the 2012 Farm Bill.

    Nutrition programs in the farm bill are also important to specialty 
crop farmers. The Fresh Fruit and Vegetable Snack Program for schools 
and the Seniors Farmers Market Nutrition Program are two of the many 
programs that help link our farmers with the people who most need 
access to fresh, healthy foods. Any program that supports local food 
purchases and helps develop new distribution networks will be a great 
benefit to both farmers like myself and the people who need access to 
the food I grow.
    There are a number of provisions in the present farm bill for 
organic certification and research and this is certainly an important 
piece of specialty crop agriculture. However, in this economy, I see 
many farmers using organic methods, but not able to spend the money or 
commit the time to complete their certification. Instead, their focus 
and that of many farmers has shifted to serving a market seeking out 
local foods.
    Whether it's certified organic, grown organically, or grown 
conventionally, consumers want to know where their food is coming from 
and who grew the crops. Because of this, I think it is important for 
the 2012 Farm Bill to include funding for programs that help all 
farmers who direct market, no matter what production techniques they 
use. This means developing food distribution networks, supporting the 
Farmers Market Promotion Program, supporting food-based 
entrepreneurship programs, and other grant opportunities. These 
programs all help improve the viability of all family farms in all 
areas of the country.
    And finally, the proposed new regulations for food safety are due 
out soon and diversified farms like mine are concerned with how this 
will change our business. Food safety begins on the farm and is 
certainly a primary concern on my farm. We work hard at ensuring it 
every day, in whatever way we can, but not knowing what is in these 
regulations and how hard it will be to comply with them scares me. If 
the farm bill can provide farmers assistance in meeting these new 
standards, whether with needed training, on-the-ground assistance from 
USDA, or tools to implement new procedures, this farm bill could 
certainly help that effort.
    These have been several of the issues of the upcoming farm bill 
that I think are most important to diversified vegetable farms like 
mine. Thank you again for the invitation to speak today and if you have 
any questions, I am always happy to answer them.

    The Chairman. Thank you.
    Mr. Osborn, you're recognized.

STATEMENT OF SCOTT OSBORN, WINE GRAPE PRODUCER; PRESIDENT, FOX 
                RUN VINEYARD, INC., PENN YAN, NY

    Mr. Osborn. Thank you. Good morning. Thank you for asking 
me to speak here today. I would like to thank you for taking 
the time to come all the way up here to listen to our thoughts 
on the upcoming farm bill.
    My name is Scott Osborn, and I own Fox Run Vineyards, which 
is a medium-sized winery in the Finger Lakes of New York. I 
have 50 acres of vinifera grapes which are the classic European 
varieties that I can grow due to the maritime influence of the 
large and deep Finger Lakes.
    I'm the current President of the New York Wine Industry 
Association and the past President of the Finger Lakes Wine 
Alliance, past President of the Seneca Lake Winery Association, 
and I was presented with an industry award from the New York 
Wine & Grape Foundation for my contributions to the New York 
wine industry. I'm also a member of Wine America and the New 
York Farm Bureau.
    The 2008 Farm Bill was historic in that for the first time 
ever specialty crops were officially recognized and supported 
in various ways. Grapes are a specialty crop, yet are the sixth 
largest dollar volume crop produced in the U.S. In New York 
alone, grapes, grape juice and wine generates more than $3.76 
billion in economic benefits to the State of New York. And the 
national industry generates more than a $162 billion for the 
American economy.
    For the new farm bill, my main concerns are crop insurance, 
research and market access programs. Crop insurance for grape 
growers is a big issue here on the East Coast. Although it has 
improved significantly in New York over the last 5 years, there 
are still a number of problems which need to be addressed.
    We are asking that you continue the premium subsidy to 
continue to get more buy in by growers. If you remove it and it 
costs too much, no one will participate.
    It would be nice if the harvest deduction was removed. 
Currently, grape growers are getting hit twice with this cost: 
Once when it is subtracted from the indemnity they get, and 
then again by the adjuster.
    This is a fee that is just charged grape growers for not 
picking their grapes. And every grape grower picks their 
grapes, so it is sort of problematic.
    The price per ton we are paid on a claim should be based on 
a 5 year average on either the contracted price or a regional 
average to reflect the real time market value as opposed to the 
current 10 year average. I also think that RMA and the USDA 
need to better educate their employees in other states where 
there is an emerging grape and wine industry, so they can 
understand the grape industry and they can be of help rather 
than an obstacle.
    We could use insurance for our new plantings. And this is 
something many people don't understand, we are a permanent 
crop, which makes us very different from other agriculture.
    Our installation costs are extreme. For example, it costs 
approximately $18,000 per acre to plant an acre of grapes, and 
it is around 4 years before the first harvest. We still have to 
farm it all this time, which runs $4,000+ per acre per year to 
farm, So the investment over 4 years is about $30,000 per acre. 
If you add in that we may be removing an under-performing 
variety and replanting for a more profitable variety, you are 
looking at, easily, a $50,000 investment per acre.
    If there's an environmental event which significantly 
damages or destroys the new vines, we have no way of recouping 
our investment. So some form of insurance would be a great help 
for that.
    In addition, moving the closing date for the MPCI, Multiple 
Peril Crop Insurance policies, to December 1st. The current 
date of November 20th is very close to the end of grape 
harvest, and in some cases people are still harvesting. Having 
an extra 10 days or so would be helpful by allowing the grower 
to make an intelligent decision rather than an impulse one.
    The specialty crop title of the farm bill was an important 
addition to the last bill, and I hope this remains. The 
Northeast is mostly made up of specialty crop producers, and 
this recognition is helpful to the success of farming in our 
area.
    The Specialty Crops Research Initiative, the Agricultural 
Research Service, IPM programs and block grants are all very 
important for grapes and other fruit and vegetable crops. A 
number of northern universities, through their grape breeding 
programs, have been able to develop grape varieties which can 
withstand subzero temperatures. This has allowed areas in the 
Northeast to develop a grape and wine industry that did not 
exist 5 years ago. The more funding towards research gives us 
more opportunities to develop our industry, providing more jobs 
and making our businesses more profitable and more competitive.
    The farm bill should continue to include export assistance 
programs such as the Market Access Program, which allows 
farmers to be competitive in a global market. Both the New York 
Wine & Grape Foundation and Welch's grape juice have received 
MAP funding in recent years, and this allows our wines and 
juice products from New York to expand current markets and 
explore new opportunities. Driving demand for our grape 
products directly helps farmers become more profitable.
    In summary, the last farm bill was a promising start, but 
needs to be continued and expanded so that specialty crops can 
contribute even more to the American agricultural economy.
    Thank you for letting me testify today.
    [The prepared statement of Mr. Osborn follows:]

Prepared Statement of Scott Osborn, Wine Grape Producer; President, Fox 
                    Run Vineyard, Inc., Penn Yan, NY
    Good morning! Thank you for asking me to speak here today. I would 
like to thank you for taking the time to come all the way up here to 
listen to our thoughts on the upcoming farm bill.
    My name is Scott Osborn and I own Fox Run Vineyards which is a 
medium sized winery in the Finger Lakes of New York. I have 50 acres of 
vinifera grapes which are the classic European varieties which I can 
grow because of the maritime influence of the Large and deep Finger 
Lakes. I am the current President of the New York Wine Industry 
Association, past President of the Finger Lakes Wine Alliance, Past 
President of the Seneca Lake Winery Association and was presented with 
the Industry Award from the New York Wine and Grape Foundation for my 
contributions to the New York Wine Industry. I am also a member of Wine 
America and the New York Farm Bureau.
    The 2008 Farm Bill was historic in that for the first time ever 
``specialty crops'' were officially recognized and supported in various 
ways.
    Grapes are a specialty crop yet are the 6th largest dollar volume 
crop produced in the U.S. In New York alone grapes, grape juice, and 
wine generates more then $3.76 billion in economic benefits to the 
state of New York, and the national industry generates more then $162 
billion for the American economy.
    For the new farm bill my main concerns are Crop Insurance, 
Research, and Market Access programs.
    Crop insurance for grape growers is a big issue here on the East 
Coast. Although it has improved significantly here in New York over the 
last 5 years there are still a number of problems which need to be 
addressed. We are asking that you continue the premium subsidy to 
continue to get more buy in by growers. If it costs too much no one 
will participate.
    It would be nice if the harvest deduction ($30) was removed. 
Currently grape growers are getting hit twice with this cost once when 
it is subtracted from the indemnity they get and then again by the 
adjuster.
    The price per ton we are paid on a claim should be based on a 5 
year average on either the contracted price or a regional average to 
reflect real time market value as opposed to the current 10 year 
average. I also think that RMA and USDA need to educate their employees 
in other states, where there is an emerging grape and wine industry, 
better so they can understand the grape industry so they can be of help 
rather then an obstacle.
    We could use insurance on our new plantings. We are a permanent 
crop. Our installation costs are extreme. For example it costs 
approximately $18,000 per acre to plant an acre of grapes. It is around 
4 years before you get your first harvest. We have to farm it all this 
time which runs $4,000+ an acre each year to farm. So the investment 
over 4 years is $30,000. If you add in that we may be removing an under 
performing variety and replanting for a more profitable variety you are 
looking at easily a $50,000 investment per acre. If there is an 
environmental event which significantly damages or destroys the new 
vines we have no way of recouping our investment. So some form of 
insurance would be a big help.
    Also move the closing date for MPCI (multiple peril crop insurance) 
polices to Dec. 1. The current date of Nov 20th is very close to the 
end of grape harvest and in come cases people are still harvesting. 
Having an extra 10 days or so would be helpful by allowing the grower 
to make an intelligent decision rather then an impulse one.
    The specialty crop title of the farm bill was an important addition 
to the last bill and I hope this remains. The Northeast is mostly made 
up of specialty crop producers and this recognition is helpful to the 
success of farming in our areas. The Specialty Crops research 
initiative, the Agricultural Research Service, IPM programs, and Block 
Grants are all very important for grapes and other fruit and vegetable 
crops. A number of Northern University's through their grape breeding 
programs have been able to develop grape varieties which can withstand 
subzero temperatures that have allowed areas in the North East to 
develop a grape and wine industry that didn't exist 5 years ago. So the 
more funding towards research gives us more opportunities to develop 
our industry providing more jobs and making our businesses more 
profitable and more competitive.
    The farm bill should continue to include export assistance 
programs, such as the Market Access Program (MAP), which allow farmers 
to be competitive in a global market. Both the New York Wine and Grape 
Foundation and Welch's grape juice have received MAP funding in recent 
years and this allows our wines and Juice products from New York to 
expand current markets and explore new opportunities. Driving demand 
for our grape products directly helps farmers become more profitable.
    In summary, the last farm bill was a promising start, but needs to 
be continued and expanded so that specialty crops can contribute even 
more to the American agricultural economy.

    The Chairman. Thank you.
    Mr. Child, you may begin when you're ready.

    STATEMENT OF RALPH CHILD, SEED POTATO AND LEAFY GREENS 
  PRODUCER, OWNER/OPERATOR, CHILDSTOCK FARMS, INC., MALONE, NY

    Mr. Child. Thank you, Mr. Chairman.
    My name is Ralph Child. I'm a fourth-generation produce 
farmer from Malone, New York. I grow 300 acres each of seed 
potatoes and leafy greens. I am active in the Empire State 
Potato Growers and the National Potato Council. Both 
organizations are active members of the Specialty Crop Farm 
Bill Alliance, a coalition of more than 100 specialty crop 
associations, companies and cooperatives across the U.S.
    I want to highlight the importance of several key issues 
included in the farm bill and a couple of issues that, while 
beyond the scope of the farm bill, remain critical to my 
continued success as a specialty crop grower in upstate New 
York.
    Prior to the 2008 Farm Bill, the needs and concerns of the 
specialty crop producers were not considered while establishing 
national farm policy. The inclusion in the 2008 Farm Bill of 
specialty crop programs designed to improve industry 
competitiveness was an important first step in making modern 
farm programs accurately reflect the mix of agriculture in the 
United States. Importantly, specialty crop producers requested 
Federal support for industry programs that were designed to 
maintain and improve competitiveness and not to provide 
compensation to growers nor to distort the specialty crop 
marketplace.
    Research is critically important to our industry's ability 
to continue to improve our productivity and to make nutritious 
fruits and vegetables available to consumers as economically as 
possible. The 2008 Farm Bill established two important programs 
that are producing research results that meet key needs for 
growers. The Specialty Crop Research Initiative provides 
competitive funding for multi-disciplinary, multi-state 
research projects that address critical industry needs. These 
are large projects that cover problems in a multi-state area.
    Since specialty crop production is so regionally diverse, 
Congress also wisely included the Specialty Crop Block Grant 
Program in the 2008 Farm Bill to address local needs. This 
program, as administered by the State Departments of 
Agriculture, is meeting the priorities of smaller growers like 
me whose needs for research and technical assistance might 
otherwise be overlooked.
    Increased access to foreign markets is also vital to the 
overall health of the industry. Many of our global competitors 
are able to produce and deliver specialty crops in a more cost 
effective way due to assistance from their own governments. 
Programs that enable U.S. producers to gain a foothold in a 
developing market are essential to growing our business 
domestically and contributing to a strong economy. The Market 
Access Program allows U.S. growers to do just that.
    MAP funds have enabled potato growers in the United States 
to market and export potatoes and potato products to 
significant economies all over the world, including the top 
export markets of Japan, China, Korea, and Mexico. U.S. potato 
industry is able to complement the funding it receives through 
MAP with other trade promoting programs including the Technical 
Assistance for Specialty Crops Program.
    TASC is crucial to maintaining market access in the face of 
sanitary and phytosanitary issues that can threaten to block 
U.S. specialty crops from critical markets. The value of TASC 
to the specialty crop industry cannot be overstated.
    Like any part of agriculture, and perhaps even more so, 
specialty crops are susceptible to plant pests and disease. 
Pests and disease can cut yield, hurt quality, and if the pest 
is a quarantined pest or a highly regulated pest, it can 
completely close off markets for our products.
    An example of a regulated pest that has the potential to 
wreak havoc on market access and devastate our local economy is 
the golden nematode. Since the quarantine is working, we are 
able to conduct business without serious consequences. With 
proper pest and disease programs, many of these issues can be 
identified early and possibly avoided altogether.
    A significant step forward for our industry in the 2008 
Farm Bill was the increased investment in the U.S. Department 
of Agriculture's Animal and Plant Health Inspection Service. 
The Plant Pest and Disease Management and Disaster Prevention 
Program allows APHIS to address plant pests early and 
proactively.
    Although it is not addressed directly in the farm bill, I 
do want to call the Committee's attention to need for adequate 
appropriations for the APHIS line item that funds the Golden 
Nematode Program in New York. That funding is important both to 
New York growers as well as to potato growers across the U.S.
    Finally, with the expected movement in the 2012 Farm Bill 
towards reliance on insurance products and away from direct and 
countercyclical payments, there needs to be a thoughtful 
discussion about crop insurance needs in the specialty crop 
industry. For specialty crop growers, annual planting decisions 
are based upon market indicators. There is a significant risk 
of distorting or destabilizing markets when incentive exists to 
make planting decisions based on crop or revenue insurance 
instead of those market indicators. I hope the Committee will 
look closely at the potential market distorting impacts of 
insurance programs using price or revenue loss triggers.
    Major policy strides were made in the 2008 Farm Bill for 
specialty crops, and we hope to build on those strides in the 
2012 Farm Bill. However, without a skilled agricultural work 
force, the best farm bill policies will not have their intended 
effect. The specialty crop industry is labor intensive and 
programs like mandatory E-Verify, without an agricultural 
worker program, would have extraordinarily negative 
consequences to growers like me.
    Since I farm close to the northern border, I understand 
firsthand the consequences of an enforcement-only immigration 
policy. I currently participate in the H-2A Program out of 
necessity, not because I think it is a viable long-term option. 
Any desire to further invest in my business is dampened by 
concerns about the long-term direction of immigration policy. I 
urge you to work with your colleagues in the House of 
Representative to approve a comprehensive immigration policy 
that provides an opportunity for existing agricultural workers 
to earn a legal status, creates a viable Guest Worker Program, 
and secures our nation's borders.
    Thank you for the opportunity to address this Committee. I 
respectfully request that the entirety of my remarks, which are 
more specific on key issues, be included in the record.
    [The prepared statement of Mr. Child follows:]

    Prepared Statement of Ralph Child, Seed Potato and Leafy Greens 
      Producer; Owner/Operator, Childstock Farms, Inc., Malone, NY
    My name is Ralph Child. I grow 300 acres each of seed potatoes and 
leafy greens in Malone, New York. I am active in the Empire State 
Potato Growers and the National Potato Council. Both organizations are 
active members of the Specialty Crop Farm Bill Alliance (SCFBA)--a 
coalition of more than 100 specialty crop associations, companies, and 
cooperatives across the United States. I want to highlight the 
importance of several key issues included in the farm bill and a couple 
issues that while beyond the scope of the farm bill remain critical to 
my continued success as a specialty crop grower in Upstate New York.
    Prior to the 2008 Farm Bill, the needs and concerns of specialty 
crop producers were not considered while establishing national farm 
policy. The inclusion in the 2008 Farm Bill of specialty crop programs 
designed to improve industry competitiveness was an important first 
step in making modern farm programs accurately reflect the mix of 
agriculture in the United States. Importantly, specialty crop producers 
requested Federal support for industry programs that were designed to 
maintain and improve competitiveness and not to provide compensation to 
growers nor to distort the specialty crop marketplace.
    Research is critically important to our industry's ability to 
continue to improve our productivity and to make nutritious fruits and 
vegetables available to consumers as economically as possible. 
Improvements in our nation's health are directly linked to expanding 
the availability and consumption of more fruits and vegetables. The 
2008 Farm Bill established two important programs that are producing 
research results that meet key needs for growers. The Specialty Crop 
Research Initiative (SCRI) provides competitive funding for 
multidisciplinary, multi-state research projects that address critical 
industry needs. These are big projects with big promise to solve big 
problems. Since specialty crop production is so regionally diverse, 
Congress also wisely included the Specialty Crop Block Grant (SCBG) 
program in the 2008 Farm Bill to address local needs. This program as 
administered by the state departments of agriculture is meeting the 
priorities of smaller growers like me whose needs for research and 
technical assistance might otherwise be overlooked.
    Increased access to foreign markets is also vital to the overall 
health of our industry. Many of our global competitors are able to 
produce and deliver specialty crops in a more cost effective way due to 
assistance from their own governments. Programs that enable U.S. 
producers to gain a foothold in a developing market are essential to 
growing our businesses domestically and contributing to a strong 
economy. The Market Access Program (MAP) allows U.S. growers to do just 
that. MAP funds have enabled potato growers in the United States to 
market and export potatoes and potato products to significant economies 
all over the world, including the top export markets of Japan, China, 
Korea, and Mexico. The U.S. potato industry is able to complement the 
funding it receives through MAP with other trade promoting programs 
including the Technical Assistance for Specialty Crops (TASC) program. 
TASC is crucial to maintaining market access in the face of sanitary 
and phytosanitary issues that can threaten to block U.S. specialty 
crops from critical markets. The value of TASC to the specialty crop 
industry cannot be overstated.
    Like any part of agriculture and perhaps even more so, specialty 
crops are susceptible to plant pests and disease. Pests and disease can 
cut yield, hurt quality, and if the pest is a quarantine pest or a 
highly regulated pest, it can completely close off markets for our 
products. An example of a regulated pest that has the potential to 
wreak havoc on market access and devastate our local economy is the 
Golden Nematode. Since the quarantine is working, we are able to 
conduct business without serious consequences. With proper pest and 
disease programs, many of these issues can be identified early and 
possibly avoided altogether. A significant step forward for our 
industry in the 2008 Farm Bill was the increased investment in the U.S. 
Department of Agriculture's Animal and Plant Health Inspection Service 
(APHIS). The Plant Pest and Disease Management and Disaster Prevention 
program allows APHIS to address plant pests early and proactively. 
Although it is not addressed directly in the farm bill I do want to 
call the Committee's attention to the need for adequate appropriations 
for the APHIS line item that funds the Golden Nematode Program in New 
York. That funding is important both to New York potato growers as well 
as potato growers across the U.S.
    Finally, with the expected movement in the 2012 Farm Bill toward a 
reliance on insurance products and away from direct and counter 
cyclical payments, there needs to be a thoughtful discussion about the 
crop insurance needs in the specialty crop industry. For specialty crop 
growers, annual planting decisions are based upon market indicators. 
There is a significant risk of distorting or destabilizing markets when 
an incentive exists to make planting decisions based on crop or revenue 
insurance instead of those market indicators. I hope the Committee will 
look closely at the potential market distorting impacts of insurance 
programs using price or revenue loss triggers.
    Major policy strides were made in the 2008 Farm Bill for specialty 
crops and we hope to build on those strides in the 2012 Farm Bill. 
Without a skilled agricultural workforce, the best farm bill policies 
will not have their intended effect. The specialty crop industry is 
labor intensive. A skilled labor force on a seed potato and leafy green 
farm is not very accessible to begin with and programs like mandatory 
e-Verify without an agricultural worker program would have 
extraordinarily negative consequences to growers like me. Since I farm 
close to the northern border, I understand firsthand the consequences 
of an enforcement--only immigration policy. I currently participate in 
the H-2A program out of necessity, not because I think it is a viable 
long-term option. Any desire to further invest in my business is 
dampened by concerns about the long-term direction of immigration 
policy. A flexible, realistic, and market-based agricultural guest 
worker program would enable me to more effectively do what I do best. I 
urge you to work with your colleagues in the House of Representatives 
to approve a comprehensive immigration policy that provides an 
opportunity for existing agriculture workers to earn a legal status, 
creates a viable guest worker program and secures our nation's borders.
    Thank you for the opportunity to address this Committee. I 
respectfully request that the entirety of my remarks which are more 
specific on key issues, be included in the record.
Specialty Crop Research Initiative
    The specialty crop industry accounts for half the farm gate value 
of plant-based agriculture in the United States. While many of our 
global competitors enjoy state subsidization, U.S. producers prefer 
support and funding for essential programs that enable the industry to 
be competitive at home and in foreign markets. The Specialty Crop 
Research Initiative (SCRI) has emerged as an essential tool to foster 
competitiveness. In the U.S. potato industry for example, $2,381,759 
provided by an SCRI grant allowed researchers from USDA's Agricultural 
Research Service in Ithaca and cooperators from across the country to 
develop and implement management strategies for Potato Virus Y as well 
as the eradication of necrotic variants of the virus that were 
introduced into the United States. Other research priorities have also 
been addressed through SCRI, including Zebra Chip research with project 
leaders in Texas and the development of varieties of potatoes with 
lower acrylamide as a result of research directed from Wisconsin. The 
program has been so successful and universally popular in the specialty 
crop industry that specialty crop producers recommend increasing the 
funding to $100 million per year of mandatory funds. Under current farm 
law, SCRI is not included in baseline funding and will not continue in 
the next farm bill unless action is taken to address funding. The 
effectiveness of SCRI could be improved by allowing greater flexibility 
in the administration of the program. Specific improvements include 
reduction of the 100 percent matching requirements, increasing 
stakeholder input, the inclusion of Federal and state marketing orders 
and commissions for consideration, and review by industry stakeholders 
for relevance prior to the scientific review.
Specialty Crop Block Grants
    The Specialty Crop Block Grant (SCBG) program is also of critical 
importance to the specialty crop industry by empowering regionally-
specific research to be conducted on a state-by-state and multi-state 
basis. In 2011, there were ten projects valued at a total of just over 
$1 million awarded in the state of New York, including extensive 
partnerships with researchers at Cornell University. Nationwide, about 
$55 million for the SCBG projects will be available in 2012. The 
program's effectiveness is clearly understood by the specialty crop 
industry, and with a few minor improvements could be even more 
responsive to the needs of the industry, including grower-level 
projects, strengthened definitions and the use of designated funds 
according to those definitions, increased emphasis on competitiveness 
and expansion of multi-state projects. Based on this experience, the 
specialty crop industry supports increasing funding by $5 million per 
year. This would translate to $350 million in mandatory funding over 5 
years.
Market Access Program
    The specialty crop industry is heavily reliant upon a robust export 
economy for continued success in the United States. For example, one in 
six rows of potatoes grown in the country today are destined for 
foreign markets, or more than double the amount we exported in 2000. 
One of the most important tools in this success story is the Market 
Access Program (MAP), which provided $6.1 million in funding for the 
U.S. Potato Board, the national marketing and promotion organization 
for the U.S. potato industry. Since 2000, potato exports to countries 
targeted with MAP funds has grown by 68%. Exports are a major reason 
that the agricultural economy has been so strong in recent years and a 
much-needed bright spot during the current national economic downturn. 
Not only does it make economic sense as an investment, it also allows 
U.S. growers to more effectively compete with their global competitors, 
many of whom enjoy significant advantages in the form of subsidization. 
As you might expect, MAP enjoys an immense level of popularity within 
the specialty crop industry and the Alliance fully supports continued 
mandatory funding at the current level of $200 million per year.
Technical Assistance for Specialty Crops
    Considering the significant stake that the specialty crop industry 
has in the export market, the industry is always looking out for 
technical barriers to trade that can close down markets for sanitary 
and phytosanitary reasons. The Technical Assistance for Specialty Crops 
(TASC) program is the vehicle to address these trade barriers in a 
timely fashion. TASC was originally designed to be a nimble and 
effective way to help the private sector resolve technical barriers to 
trade. These barriers can emerge unexpectedly and require fast action 
to prevent market closures and trade disruptions in established 
markets. Given the value and effectiveness of TASC, the Alliance 
recommends continued mandatory funding at $9 million per year.
Plant Pest and Disease Management and Disaster Prevention
    Commonly referred to as Section 10201, the Plant Pest and Disease 
Management and Disaster Prevention program in the 2008 Farm Bill allows 
funds to be used for early plant pest detection and surveillance, for 
threat identification and mitigation of plant pests and diseases, and 
for technical assistance in the development and implementation of 
audit-based certification systems and nursery plant pest risk 
management systems. This program is highly effective and allows USDA's 
Animal and Plant Health Inspection Service to address potential pest 
and disease issues proactively rather than reactively. Section 10201 is 
currently funded at a level of $50 million per year and the Alliance 
recommends $75 million in mandatory funding per year.
National Clean Plant Network
    The National Clean Plant Network (NCPN), or Section 10202, is a 
program also administered by USDA's Animal and Plant Health Inspection 
Service under which a partnership of clean plant centers are organized 
to provide high quality asexually propagated plant material free of 
targeted plant pathogens and pests that cause economic loss to protect 
the environment and ensure the global competitiveness of specialty crop 
producers. NCPN is funded through 2012 at $5 million per year but does 
not have baseline funding in the next farm bill. The Alliance 
recommends mandatory funding of $10 million per year for the National 
Clean Plant Network.

    The Chairman. They will indeed be included in the record, 
and thank you, Mr. Child.
    Mr. Sullivan, begin whenever you're ready.

STATEMENT OF ADAM F. SULLIVAN, APPLE PRODUCER; ORCHARD FOREMAN, 
               SULLIVAN ORCHARDS, INC., PERU, NY

    Mr. Sullivan. Good morning, Mr. Chairman, distinguished 
Members of the Committee. I'd also like to recognize 
Congressmen Bill Owens and Chris Gibson, and thank you both on 
behalf of the industry. If you could please let Ranking Member 
Peterson know that a grower from upstate New York wore purple 
so that the Minnesota Vikings can get the stadium passed, I 
would be most appreciative.
    I appreciate the opportunity to speak to you today about 
the impact of the 2008 Farm Bill and priorities for 2012 
legislation. My name is Adam Sullivan of Sullivan Orchards, and 
I'm a fourth-generation apple grower from Peru, New York. Due 
to the time constraints, I'd like to encourage all of you, if 
you have not had the opportunity, to review and read the 
written testimony that I have submitted.
    The written testimony provides excellent detail of many 
issues facing and impacting growers across this country in 
which the farm bill has been very effective in assisting 
growers, whether it is the Specialty Crop Research Initiative, 
which is playing a critical role in slowing down the damage 
caused by the newly invasive brown marmorated stink bug, or the 
Tree Assistance Program which help growers, many of whom are 
located in the Champlain Valley, recover losses from 
catastrophic tree loss sustained from an early thaw followed by 
extensive cold weather, which in turn killed the trees.
    Today I'd like to spend the remainder of my time teaching 
you about three specific issues regarding the farm bill. These 
issues are the Market Access Program, crop insurance and, of 
course, labor.
    Exports are extremely important to the apple industry with 
nearly 30 percent of the fresh crop destined for overseas 
markets. The export market is critical for the Empire variety, 
which is the second most grown variety in New York State. 
Empires are exported throughout the European Union, recently as 
far as Singapore, to name a few, and all thanks to MAP funding.
    The apple industry strongly supports the Market Access 
Program which has helped level the playing field as we compete 
with countries such as China and Chile who have a much lower 
cost of production. MAP is a public-private partnership with 
growers contributing $2 for every Federal dollar the industry 
receives. While my company only exports a small portion of our 
crop, every apple exported is one less apple I have to battle 
shelf space for.
    Now I'd like to change gears and tell you a brief story. In 
1983, on a Saturday afternoon in late August, about 3 o'clock 
in the afternoon, a storm fell over the orchard and we could 
hear the hailstones pinging off the metal roof. I remember 
seeing my father watch as the stones piled in the driveway. 
After about 5 minutes it stopped. Dad went out to evaluate the 
crop. He came back ``annoyed'' that this had happened, but the 
crop was salvageable. Then 5:30 came, and the real storm began.
    I don't remember how long it lasted, but I remember him 
staring out the window with my mother consoling him. It was 
determined that a tornado landed less than a mile away and 
pummeled the apples. I was 6. The crop was so severely 
destroyed that mom and dad were only able to sell one load of 
juice. That year's crop fermented on the orchard. The real 
kicker was that he didn't have crop insurance. It took them 
more than a decade, through hard work and God's good will, that 
they got the orchard financially secured again.
    The second issue I'd like to discuss is the Federal Crop 
Insurance Program. Over the years, the industry has worked 
closely with USDA's Risk Management Agency. As a result, 
significant improvements to the apple policy have been made, 
such as fresh fruit buyout, specific grades and a list of what 
actually constitutes a defect.
    Crop insurance is an excellent tool to help the grower 
manage risks. With farming, challenging weather is part of the 
deal and crop insurance makes the grieving process a little 
easier. Input costs are so high today, the margin so tight, 
that a grower could not back--excuse me--a grower could not 
come back from a loss suffered like my parents without crop 
insurance.
    Last, most importantly, I would like to discuss labor. 
Clinton County, which is where Sullivan Orchards is located, 
has more cows than people. The youngest full-time employee at 
Sullivan Orchards is 35 and he's sitting here before you today. 
The next youngest employee is 58.
    The younger generation is not coming to work in agriculture 
in Peru. Due to our climate, soils, and I like to believe, 
skills, the Champlain Valley is known for growing the highest 
quality McIntosh apples, and I see many of you eating them 
today.
    The Champlain Valley harvest is approximately 1 million 
bushels of Macs in a 4 week window. Unfortunately, there is not 
a local work force to harvest a crop. As a result, our farm and 
all the apple growers in the region have relied on the Jamaican 
H-2A Program.
    For approximately 30 years, the program has worked for 
Sullivan Orchards. We have the same men returning year after 
year. Last year marked the 25th season for James Hahn who was 
the last of the original men.
    Since I returned to the farm, and even prior to that time, 
there has been constant rhetoric about the need for an 
efficient Guest Worker Program. We are no closer now then we 
were 10 years ago. Instead, we are threatening people with E-
Verify, scaring growers using the only legal Guest Worker 
Program, and are taking away health insurance from our Jamaican 
guest workers.
    The subject of immigration reform has been talked to death. 
I understand it is an election year, and I understand that 
unemployment is high. I understand that immigration is a very 
sensitive issue. Unfortunately, myself and the other growers in 
the Champlain Valley don't have an alternative way to get the 
crop grown and harvested.
    We need an effective Guest Worker Program. I depend upon 
the men coming year after year. They plant the trees. They 
operate the tractors. They mow the orchard floor. They know the 
fields. They go to the local church. They purchase groceries at 
the local Grand Union. They buy clothes at the local store. 
They pay Federal and state taxes. They are as much a part of 
the success of Sullivan Orchards as I am, my father is, or 
Gramp was.
    The time for rhetoric is over and action needs to be taken 
concerning a Guest Worker Program. Let's get an effective Guest 
Worker Program passed for 2012 for all commodities, including 
dairy.
    Thank you for the opportunity to speak. I will be happy to 
answer any questions, and enjoy those Macs.
    [The prepared statement of Mr. Sullivan follows:]

    Prepared Statement of Adam F. Sullivan, Apple Producer; Orchard 
               Foreman, Sullivan Orchards, Inc., Peru, NY
    Good morning, Chairman Lucas, Ranking Member Peterson, and 
distinguished Members of the Committee. I would also like to recognize 
Congressmen Bill Owens and Chris Gibson and thank you both on behalf of 
the industry. It is great to have two New Yorkers on this important 
Committee and we look forward to working with both of you on the new 
farm bill.
    Thank you for the opportunity to speak today about the impact of 
the 2008 Farm Bill and priorities for the 2012 legislation. My name is 
Adam Sullivan of Sullivan Orchards and I am a 4th generation apple 
grower from Peru, New York. My Great Grand-father started the farm with 
a handful of cows, some apple trees, a few vegetables and potatoes--a 
good Irishmen. When ``Gramp'' took over, he sold all the cows to grow 
strictly apples, which is how the farm remains today. My father and 
mother are still the primary stakeholders and participate in much of 
the functions of the orchard. I returned to the orchard in 2003 to 
serve as the orchard foreman and run the day to day activities.
    From New York to Washington State and Michigan to California the 
industry is comprised of independent business owners, many of whom are 
third or fourth generation. We strongly support programs that build 
long-term competitiveness, drive innovation and grow demand of our 
products. Apple growers and the produce industry are not seeking a 
government farm program to support grower income or market prices. That 
would not be in the best interest of my business or our industry. The 
2008 Farm Bill made a number of important strides toward each of these 
goals.
Research
    Research and extension activities supported by USDA provide the 
apple industry with a competitive edge by enabling the introduction of 
new cultivars, implementation of improved pest management strategies, 
genomics and plant breeding and science-based improvement of food 
safety.
    One of the most successful programs of the 2008 Farm Bill is the 
Specialty Crop Research Initiative (SCRI), which provides funding for a 
variety of research programs throughout the specialty crop industry. 
For apple growers, this program played a critical role in slowing down 
the damage caused by the newly invasive Brown Marmorated Stink Bug 
(BMSB).
    The SCRI funded a 3 year, $5.7 million research grant involving 
over 50 scientists and ten research institutions nationwide to develop 
methods to control this destructive pest. The research has already 
yielded significant benefits. Information provided to growers from SCRI 
researchers resulted in a dramatic reduction in losses in 2011. 
U.S.Apple estimates that information from SCRI researchers saved apple 
growers alone at least $35 million in 2011--that is over six times the 
amount of the total 3 year grant. Much more research needs to be done 
to develop a long term solution to the BMSB problem, but this research 
project alone promises to save agriculture from potentially billions of 
dollars of losses nationwide.
    This is only one example of the impressive return on investment 
that the SCRI has provided during its first 4 years. Advances made in 
SCRI research projects on mapping the apple genome, mechanizing orchard 
practices such as pruning and harvesting, and prevention of other 
disease and insect pest threats promises to result in even greater 
savings to agriculture that translates into a direct benefit to the 
U.S. economy and U.S. jobs.
    Another important program is the National Clean Plant Network, 
which serves as the single nationally-certified source of plant 
material free of potentially devastating diseases and pests. Enabling 
the nursery industry to produce clean plants is of critical importance 
because a number of serious diseases can enter into the United States 
through nursery stock. Once such pests and diseases become established 
in a region it is very difficult to eradicate them.
    A strong commitment to research is critical to the future of the 
apple industry, but the benefits of a strong and coordinated research 
program flow directly into the U.S. economy.
Crop Insurance
    The apple industry is one of a handful of specialty crops that 
participates in the Federal Crop Insurance Program. Over the years, the 
industry has worked closely with USDA's Risk Management Agency (RMA) 
and as a result, significant improvements to the apple policy have been 
made. USApple and the RMA collaborated to provide growers with an 
insurance program that better addresses the unique needs of the 
industry. Just this past season, Hurricane Irene came for a visit. The 
storm damaged our fresh fruit production through hail stones piercing 
the fruit and wind knocking apples into each other causing bruises. 
Nine inches of rain fell with 50 mph wind gusts blowing trees over. 
Through having the Fresh option with our crop insurance policy, 
Sullivan Orchards is able to recoup some of our loss.
    No crop insurance program will make a grower devastated by a 
natural disaster financially ``whole,'' but it will allow them to 
survive a devastating loss and continue to support the economic engine 
of rural America. Let me be clear, crop insurance enables me to manage 
risk, but it should never be designed in a way that distorts the market 
or encourages sub-par production. The apple industry is also concerned 
that as discussions in Washington, D.C. have moved to further expand 
crop insurance programs, there will be additional requirements 
attached, such as cross compliance with other Federal programs. What we 
need is less government regulation, not more.
Tree Assistance Program
    When severe weather occurs, apple growers can experience not only 
lost crops, but damaged or destroyed trees. That is exactly what 
happened in 2004 when a January thaw of December's heavy snow fall, 
followed by 30 below zero temperatures, caused moisture in the ground 
to freeze and snap roots of more than 30,000 trees in Clinton County.
    The replacement cost alone for those trees, was estimated at nearly 
$3 million, and when you add the lost crop revenue, the total loss is 
much greater. This was also a multi-year loss, as new trees take 3 to 5 
years to produce fruit. The Tree Assistance Program (TAP) offered a 
lifeline by providing funds to growers to partially offset the cost of 
tree replacement. However, securing those funds was a tough lift and it 
was only because there was a large disaster bill already moving through 
Congress that TAP funds were allocated.
    That is why the apple industry urged Congress to include mandatory 
funding for TAP in the 2008 Farm Bill. This program is a success and 
must be maintained and expanded if possible to reach more growers.
Export Programs
    Exports are extremely important to the apple industry, with nearly 
30% of the fresh crop destined for overseas markets. While our company 
only exports a small portion of our crop, a strong export market 
strengthens domestic prices for growers nationwide. For many growers in 
New York, the export market represents a significant portion of their 
business.
    The apple industry strongly supports the Market Access Program 
(MAP), which has helped level the playing field as we compete with 
countries such as China and Chile that have a much lower cost of 
production.
    As a direct result of the MAP program funding, New York companies 
have been able to identify and supply key importers in Singapore--who 
are looking for new products for their stores and for the past three 
seasons they have been stocking apples from New York State. Growers and 
shippers from New York would not be able to conduct activities or 
develop a market such as this without the support of MAP funds that 
allowed us to bring buyers to the U.S. to meet with suppliers. MAP also 
funded sampling programs in supermarkets to educate consumers in 
Singapore about apples and their unique flavors. MAP is a public-
private partnership, with growers contributing $2 for every Federal 
dollar the industry receives.
    The Technical Assistance for Specialty Crops (TASC) is another 
important farm bill program which provides funds to resolve 
phytosanitary and technical barriers that prohibit or threaten access 
to a foreign market. The New York apple industry used TASC funds to 
maintain an important foot-hold in the Israeli market when pest and 
disease concerns threatened to shut down the market. The U.S. Apple 
Export Council worked with Cornell University to develop new pest 
mitigation guidelines which allowed trade to continue without 
interruption.
    I would also like to take this opportunity to thank Congressman 
Owens for introducing H.R. 3914 to amend the Apple Export Act. This 
bill would eliminate the USDA inspection requirement for bulk apples 
into Canada. The requirement, which dates back to 1933, is no longer 
necessary or required by the Canadians. If passed, this bill will save 
money and time for the grower and, in the process, increase exports.
Nutrition Programs
    Programs like the Fresh Fruit and Vegetable program are a win-win 
for the apple industry and the children that are served. This highly 
successful national program reaches more than four million low-income 
elementary school children, many of them in New York City. Apples have 
consistently been one of the most popular fruits in the program.
    The program is popular with parents, students and educators alike. 
Many of the students who participate take what they learn home with 
them by asking their parents to buy fresh fruits and vegetables. There 
is a bipartisan focus on reducing the rate of childhood obesity and 
diabetes through improved nutrition and this program accomplishes those 
goals.
Marketing Programs
    The 2008 Farm Bill includes a number of important marketing 
programs which have proven beneficial to the apple industry both in New 
York and nationally. The Specialty Crop Block Grant program focuses on 
regional and local priorities to improve the competitiveness of 
specialty crop producers. Nationally, the apple industry has utilized 
these grants for food safety programs as well as marketing initiatives 
and state programs including ``Pride of New York.''
    The Value-Added Grant program is also helping growers here in the 
north country. Red Jacket Orchards, which is located in Geneva, 
received such a grant which they used to expand their operation and 
create new jobs in the process.
Labor--Our #1 Issue
    I would be remiss if I did not raise the issue of agricultural 
labor and the concerns that apple growers have from coast-to-coast as 
to whether they will have adequate labor to pick the crop. In other 
parts of the country you hear a lot about migrant workers but we here 
in the Champlain Valley are a little different.
    Clinton County has more cows then people. The youngest full time 
employee at Sullivan Orchards is 35 and he is sitting before you today. 
The next youngest employee is 58. The younger generation is not coming 
to work in agriculture in Peru.
    Due to our climate, soils, and I like to believe skills, the 
Champlain Valley is known for growing the highest quality McIntosh 
apples. Unfortunately, the harvest window for McIntosh lasts only 4 
weeks. The Champlain Valley harvests approximately 1 million bushels in 
this 4 week window. As stated earlier, there is not a local work force 
to harvest the crop. Most migrant workers do not want to travel to this 
area because of the short work period.
    As a result, our farm and most all of the apple growers in this 
part of New York have relied on the Jamaican H-2A program. It is not 
uncommon to have the same workers return for 10 or even 20 years. The 
program, while expensive and bureaucratic, has supplied us a reliable 
and consistent workforce and up until about 2 years ago it worked 
pretty well.
    In August of 2010, just as we were gearing up for harvest, the 
program came to a standstill and workers were delayed in arriving 
because the U.S. Government began questioning the legitimacy of 
voluntary fees which had always been paid by the workers to the 
Jamaican Central Labor Organization (JCLO) to pay for health insurance, 
and liaison services provided by the JCLO to the workers. The JCLO also 
coordinated a program for workers to send money home at no charge if 
they chose. The JCLO is affiliated with the Jamaican Government and the 
program and voluntary fees had been in place since the 1990s. When the 
Department of Labor began questioning these services and specifically 
the fees, we almost lost our workers. Finally, due to the intervention 
of a number of senior Members of Congress, an agreement was reached 
that no fees would be taken out and the workers arrived.
    This ``compromise'' is still in effect and we are now getting our 
workers on time. However, they are coming without health insurance and 
if they want to send money home, they have to pay exorbitant fees 
through Western Union. I have had workers come to me and express 
concern that they no longer have health insurance. They don't 
understand--and neither do I--why our government would take that right 
away from them.
    Though the program is mostly working again, I have strong concerns 
about what will happen if mandatory E-Verify legislation is passed 
without agricultural labor reforms and suddenly all of agriculture is 
forced into the H-2A program at once. Currently, the program only 
supplies about 50,000 of the estimated one million agriculture workers 
needed in this country. Sullivan Orchards has been in this program for 
over 30 years, and I can tell you first hand that it does not have the 
capacity to double let alone increase twenty-fold without major 
reforms. What the industry needs is a stable, adequate, able and 
predictable supply of agricultural labor able to participate legally in 
the U.S. workforce.
    Thank you for allowing me the opportunity to testify before this 
Committee. These discussions and the reauthorization of the farm bill 
offer an exciting opportunity to further improve important specialty 
crop programs and support increased growth and competiveness of the 
apple industry.

    The Chairman. Thank you, Mr. Sullivan.
    I now recognize myself for 5 minutes.
    Your memories of going to the field after the catastrophe 
reminds me of being a 7 year old and following my father to the 
wheat field nearest the house one night and watching him stand 
in that field with his flashlight and realizing every stalk was 
broken over and that quiet walk back. Even as a 7 year old, 
like yourself, there are some things you remember forever. The 
fact that he said nothing for 2 days made a great impression on 
me. That said, that's what we're here about, and that's what 
we're here to try to address.
    Mr. Eckhardt, let's begin with you. You mentioned the SURE 
Program and you talked about your experiences. Could you expand 
on that just a little bit, and not only your experience with 
SURE, but expand for a bit on where you think the money would 
be better spent, perhaps you think the money would be better 
spent somewhere else?
    Mr. Eckhardt. Right. I think as we look at eligibility for 
coverage under certain programs, the paperwork and record 
keeping trail, along with whether or not SURE will be released, 
is just so burdensome that many people back away from any 
insurance coverage whatsoever. I mean, it may be that the only 
reason they sign up for CAT for their field crops or for NAP 
for their vegetable crops is that their banker may require that 
they have some type of coverage.
    But when it gets right down to push come to shove, for 
instance, with NAP, the first 50 percent of your loss is yours. 
You take it in the shorts for 50. If you have 51 percent loss, 
you will get indemnification for one percent. Do you understand 
what I'm saying?
    So when you look at the calculations, and SURE Program has 
some of the same issues, only it's usually 2 years later that 
those funds start to become available, and through the process 
of qualification and the review by the county committees and 
the FSA county and state committees, that you get some 
indemnification through the SURE Program.
    My seed company really is looking to get paid that year for 
the seed I bought from them, not 2 years later. My fertilizer 
company wants their money sometimes up front. When we look at 
these kind of indemnification programs that are that long in 
getting funds back to those people who have had losses, 
sometimes catastrophic losses, it just isn't working.
    You know, what could we spend it better on? Perhaps on some 
type of process or policy NAP process, that would allow the 
grower to purchase a higher level of coverage. Much like we 
have in the crop insurance programs. NAP would, for lack of a 
better term, I call it NAP Plus. But these would be things that 
we could tweak to this program to make it so that it's more 
acceptable.
    And the other thing is, is it's very difficult when you try 
to put together what is referred to as APH, actual production 
history, for your farm. You know, you produce potatoes or sweet 
corn or whatever, you have to come up with documentation year 
after year to justify that.
    So it's--it's extremely difficult and time consuming for 
the producer and those people in the FSA and the crop insurance 
people to come up with speciality crop insurance that's going 
to work. SURE has it. It just is too time consuming and too 
late.
    The Chairman. Switching gears for a moment, gentlemen. I'd 
be honest, if I did not admit this to you, I would not be 
honest. The northwest half of the great State of Oklahoma is 
what I represent. And when I stand up in front of this 
building, I can see more trees than there are in my entire 
Congressional district, so understand I think they're amazing 
things, these trees.
    Could you tell me for a moment about your experiences with 
the Tree Assistance Program, TAP, if anyone has experience?
    And by the way, I like trees. I'm not opposed to trees. I 
just don't have any.
    Mr. Sullivan. I think it was 2003 or 2004. Don't hold--hold 
me to the actual year it happened. We had an extensive snowfall 
in December and then we had a wonderful January thaw, which was 
nice. I mean, it went from 20 below up to into the nice 30 
and 40. It was a nice, nice, nice little break. But then 
January decided to come back with full vengeance and froze up 
the ground, which in turn snapped the roots and killed the 
trees.
    So in the Champlain Valley, we had close to 30,000 trees 
that--that snapped off at--in the root system and the trees had 
to be removed and replaced. And so we did the Tree Assistance 
Program. It helped. It assisted, and I mean, it didn't pay for 
the loss by no means, but I mean it was extra money that was 
certainly needed and it was nice.
    The Chairman. This, of course, is one of the many reasons 
we have these hearings. I come from an area where this is not 
really utilized, but obviously it is an important program.
    Mr. Sullivan. It has its place, of course--I didn't get 
into it in my speech, and I'm glad to hear that we're really 
trying to be financially and fiscal responsible. All these 
policies are great to have and regulations are great and the 
Tree Assistance Program is great. But the $30,000 that we got 
from putting--from the Tree Assistance Program, it was nice. It 
helped. I'm not going to say no, because it's there.
    But if it wasn't there, I am still going to be farming. I 
mean, call me thick-headed and dumb, I mean, but I'm still 
going to make a go of it. That I think it's more important as 
you're doing the farm bill that you look and you say is it 
worth putting my kids and everybody else's kids here further in 
debt for giving a little Band-Aid aid or is it better that 
maybe we don't put the money out there.
    The Chairman. Your insights are very appreciated. My time 
has expired. I now recognize the gentleman from Georgia for 5 
minutes. Mr. Scott.
    Mr. David Scott of Georgia. Thank you very much, Mr. 
Chairman.
    Seems to me that the two most pronounced areas of great 
challenge to the specialty crop industry here is the need for 
crop insurance because no area of agriculture is more 
susceptible to storms and weather conditions than specialty 
crops. And the other one is your challenge with labor because 
it's labor intensive. It's getting out there, picking and 
harvesting these crops. So let me start off with the crop 
insurance.
    Mr. Eckhardt, I think you probably hit some of this: How 
many lenders now require crop insurance, and would this be the 
way to go, that lenders require the growers to have insurance 
if they lend them money for their operating cost?
    Mr. Eckhardt. I don't think I've ever been told by a lender 
that I was not going to get a loan if I didn't have crop 
insurance.
    Mr. David Scott of Georgia. Okay.
    Mr. Eckhardt. But you can tell by body language and 
interest rate just how important they make that: It would be a 
great idea, Mr. Eckhardt, to have some crop insurance. And 
you're nodding your head like this, going, yes, you're 
absolutely right.
    So to say that in some writing some place, crop insurance 
was required by my lender, I don't think I've ever seen that. 
And if it is, what the big print giveth, the little print 
taketh away. But I still think that as we go forward, it 
certainly gives them the option to say this person has some 
coverage should there be a catastrophic loss and we might 
actually ask to be named as one of the people who receive those 
funds.
    Mr. David Scott of Georgia. Do you think that with us in 
Washington, in Congress, as we develop policy, that some kind 
of way that we approach with this farm bill some effort to 
require that?
    Mr. Eckhardt. Well, perhaps--perhaps through a--if it was 
required by a lender, the farm bill could look at how there 
might be a reduced interest rate to that grower who's borrowing 
operating or capital funds, a reduced interest rate if you do 
have some type of workable crop insurance. But it needs to be 
something that's actually going to pay you something if you 
have a loss.
    Mr. David Scott of Georgia. Right. All right. Now let's 
turn to the labor issue, because, Mr. Sullivan, I really think 
that you hit the nail on the head here with this. Because we 
can no longer continue to hide from this issue. If we do not 
address the labor issue for specialty crops, how devastating 
would this be? I mean, we've another Farm--we got this farm 
bill. I mean, there may be some things we could do with this, I 
don't know. We certainly can bring that discussion up, but this 
farm bill comes around every 4 years. How urgent is this 
problem to develop a Guest Worker Program for specialty crop 
producers?
    Mr. Sullivan. I think Mr. Child has probably a pretty good 
example on how urgent the, if you don't mind telling your 
experience with--a couple of years ago, about the H-2A Program 
and how our government decided to take it upon themselves to 
invoke rules that nobody knew about to not allow the men to get 
in here.
    Mr. David Scott of Georgia. I did want to get to that 
because, Mr. Child, I was getting to you next. And as you 
respond to this, you said securing the borders, and that was 
the only reference that you made in your testimony to what 
might be judged upon as dealing with this immigration issue. I 
want to ask you that, but I also wanted to ask you which 
borders? Are you talking about Canadian border?
    Mr. Child. I do live near a high priority enforcement zone 
on the Canadian border, but I fully recognize most of the 
people that are coming into the country to work are coming in 
on the southern borders. The fact that I live so close to the 
border, with a border patrol station in my town, just makes me 
very vulnerable to enforcement.
    I think it was back in 2004 was the last year that I hired 
crews from labor contractors that were green-carded people. 
It's a pretty well known fact that approximately 70 percent of 
the migrant workers in agriculture are probably here with 
forged documents. And we might as well bring out the facts and 
tell it straight.
    I currently use the H-2A Program which Mr. Sullivan alluded 
to that he uses--for his Jamaican work force. I still hire 
Mexican workers for my vegetable farm.
    The H-2A Program has allowed me to have a continuity from 
one year to the next without concerns about enforcement from 
Immigration, but the Administration, through the Department of 
Labor, has been quite difficult. There are a lot of hoops to 
jump through.
    Mr. David Scott of Georgia. Right?
    Mr. Child. It's been really frustrating the last couple of 
years, where the rule changes from one year to the next, make 
it quite difficult, and----
    Mr. David Scott of Georgia. Let me just--I know my time is 
getting around the Chairman's back. I don't want him to cut me 
off. But may I make one suggestion that might be helpful, is 
that you get these specialty crop block grants coming down 
through your state, and you also--we also have Specialty Crop 
Research Initiative, and you have some excellent universities 
and research groups here. It might be useful to do some 
documentation, engage in some study of this impact of the labor 
issue with the specialty crops in this region. And it could 
qualify for that, to begin to give us in Washington more 
substantive information and credibility on how we move forward 
with this, because, I assure you, I grew up on a farm. I used 
to come up. Matter of fact, I used to come up here a long time 
ago when I was a kid, in around Utica. And they used to have a 
lot of bean picking up there then. I don't know if they still 
do. And even back then, it was migrant labor coming up from the 
south, and they used to have what they called bean camps up 
here.
    So you're very unique in this regard, and it could be a 
wise utilization of your block grants to get some information 
on this. Thank you, sir.
    The Chairman. The gentleman's time has expired. The chair 
now recognizes the gentleman from Virginia for 5 minutes.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    I'd like to follow up on the questions of the gentleman 
from Georgia, again, on the issue of the H-2A Program and Guest 
Worker Programs in general.
    I have, in the last few Congresses, introduced legislation 
to reform the H-2A Program to change the adverse effect wage 
rate, which seems like a bureaucrat's dream, to the prevailing 
wage rate which it seems like most businesses pay their workers 
based upon what the prevailing wage is in--in the marketplace. 
It also would reform a number of these other issues.
    Unfortunately, it's also not something that will come up in 
the farm bill because it's the Judiciary Committee's 
jurisdiction. But since I am a Member of the Judiciary 
Committee, I can be helpful in that regard, and I would love to 
hear some of the particular problems that you had here in the 
last 2 years with the H-2A Program.
    One example that I've heard, from my apple growers in the 
Shenandoah Valley, has been that they have no ability to 
determine whether or not the worker can actually do the work of 
climbing a ladder and picking apples. In fact, when they 
attempted to determine that the people they were going to be 
hiring would indeed climb a ladder, they were told that they 
were imposing a requirement that was inappropriate.
    This kind of problem really makes a program which was 
struggling to begin with, the H-2A Program, even more 
unworkable and why I think it needs to be reformed. But Mr. 
Child, Mr. Sullivan, any of you want to jump in and talk about 
the experience you've had lately in dealing with the workers 
you need under the H-2A Program?
    Mr. Child. Yes, there are a few hurdles that have come up 
in the last couple years. A lot of times with this program 
we're being regulated by multiple agencies, both at the Federal 
and state level. In the past, the H-2A Program required a 
certain--required that the producer provide housing for the 
workers, but left the inspection of the housing up to the state 
departments of health.
    That changed a couple years ago where, then before you 
could receive certification, the inspection of the housing had 
to be done at that time. Since you have to apply so far ahead 
before your date of need for the workers, that meant going out 
in the snow banks and working on the labor camp just to get 
certification rather than having the facilities ready when the 
workers arrived, and that's been a bit of a hardship.
    I have heard horror stories. Some of my colleagues in Idaho 
have had some very bad issues along those lines, where for very 
minor, not even what you would normally consider infractions, 
they're denied a housing permit. And then that backs up the 
whole process and you have to start all over again.
    Some of the regulations may have good intent, but the way 
they're administered is really off base.
    Mr. Goodlatte. Agreed. Let me, since I'm going to be 
limited in time here.
    Mr. Child. Okay.
    Mr. Goodlatte. Let me shift over to another topic I'd like 
to raise that we haven't had a lot of discussion about, and 
that's the conservation programs. And I'll give Mr. Eckhardt 
and Mr. Osborn an opportunity to tell us about which of those 
programs producers in this part of the world take part in and 
what conservation programs we should focus on with the limited 
resources we have.
    Mr. Osborn. I just want to add something just from the last 
on the H-2A, and that is for a small producer like me, H-2A 
doesn't work. It's too expensive and when I need three 
employees for 1 week and then a month and a half later I need 
ten, the H-2A doesn't fit. And there are a lot of small grape 
growers and specialty crop producers that H-2A just doesn't 
work, so there's nothing there for us to get the extra help 
that we need.
    In terms of conservation, we've worked with the Soil and 
Water. We've got our drainage ditches put in. Those are all 
very effective. The Cooperative Extension and their help in 
bringing and letting us know what is available to us in terms 
of education and the programs like mulching and things like 
that that help our conservation are all very effective. I mean, 
I appreciate everything that's being done.
    Mr. Eckhardt. The EQIP Program is critically important, but 
it also has a component that the producer contributes. There 
are other matching funds that might be available from state or 
local municipalities, so that when you look at the funding for 
EQIP, as we tweak the program to make it work better, 
especially in the specialty crops, I think there are lots of 
opportunity to leverage other programs to fund that.
    I think the critical part is, is we are all 
conservationists at heart. We want to have something left for 
our children and our grandchildren to farm. But if we don't 
have these critical programs and practices in place, in some 
cases there may not be much left, and the environment is 
important to us.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    The Chairman. The chair now recognizes the gentleman from 
New York, Mr. Owens for 5 minutes.
    Mr. Owens. Well, thank you, Mr. Chairman.
    Gentlemen, thank you for testifying today.
    It seems to me that the two issues we're hearing most about 
are crop insurance and farm labor issues. I know that certainly 
with Mr. Sullivan we've had many, many conversations about this 
as it goes, and some cases go back to your father in the 1980s, 
when we were having those same discussions.
    In terms of the crop insurance issue, is there some 
analysis, that you've seen that's out there, that would give us 
a good road map to establishing a workable crop insurance 
program? Obviously understanding it may have to be modified 
regionally, and may also have to be modified in terms of the 
type of agricultural program we're facing. It just strikes me 
that we've had a lot of conversation about it, but when you 
look at the crop insurance programs, it's not clear to me that 
there is in fact an analysis that we could utilize to really, 
in a major way, revamp these programs to make them more 
functional.
    Mr. Eckhardt. You're asking for a template that we can 
apply across the board, with specialty crops, with field crops 
like corn, soybeans, wheat, cotton. I think it's going to be a 
group effort to come up with a--we have a base, and I look at 
that base as being, like the NAP Program, for those programs 
that do not have any insurance, and the possibility of having 
more crops added to the insured programs rather than relying on 
NAP. But as a template, I think it's going to have to come down 
to a consensus among specialty crop growers, region by region, 
what works. And I think that looking at some of the things that 
don't work and tweaking them to get them so they do work.
    I wish I could say I had a template, and be able to hand it 
to the Committee and say, here, this will work. This is my idea 
as how it's going to work. I have some ideas, but it is not a 
template, but it is some ideas on how we can tweak it and make 
it work better. It's very difficult because there are so many 
thousand of specialty crops that we would have to include in 
something like that.
    Mr. Owens. Well, let's start with the ideas that you do 
have, and let's lay them out and then get some analysis done to 
determine whether or not that works.
    One of the things that struck me in your testimony, when 
you talked about and having read about this before, is if you 
have a 51 percent loss but you have, in effect, a deductible of 
50 percent and you're getting paid one percent, it hardly makes 
sense, I would think in most cases, to buy the insurance.
    Mr. Eckhardt. That's correct. And I think when you look at 
specialty crop growers and NAP insurance in general, whether it 
be for a hay crop for dairy farmers, I mean, if you wanted NAP 
insurance on your hay in 2012, you're already too late, because 
you had to sign up by the 30th of September in 2011 to have 
that crop insured.
    To me, the first step is changing sign up dates. I mean, 
just like Ralph said, to be able to look at the market 
situation just prior to planting or planning to plant and say 
okay, this crop, that crop, going to dropped, but you had to 
buy it or at least sign up for the insurance 6 months ago, kind 
of odd.
    But also, what I would refer to as NAP Plus, where you 
would actually, as an individual grower, choose to buy 
additional insurance, maybe insure it to 65 percent, so you had 
a 35 percent loss, and then you would have indemnification kick 
in, you know. It's $250 per crop, per county, up to a maximum 
of three crops. Okay, let's move it to a situation where you 
would pay $500 or maybe a thousand, and you, as an individual, 
would be able to choose that based on your need for protection.
    Mr. Owens. Thanks. Want to move to the labor issue for just 
a minute. I'm curious, from all of the panelists, whether or 
not they would support a program that would provide for the 
allowance of individuals currently in the country, potentially 
illegally in the country, to obtain a work visa? Is that 
something that the farm community would support?
    Mr. Eckhardt. Oh, yes. I mean, for us it would be a--I 
don't have any migrant workers right now. My work force is 
almost entirely locals and especially teenagers.
    You know, we're just holding our breath on how we're going 
to farm in 2012 if I can't hire my teenagers. First of all, 
we're one of the few employment opportunities for them. But the 
biggest concern for us always is the fact that they're in 
school until the end of June. They go back to school at the end 
of August or early September, and what do I do to get crops 
planted and what do I do in the fall to finish the harvest?
    And having some--a few people available just for that short 
period of time would be extremely helpful. Just like the H-2A 
doesn't work. I mean, we need something that will work, and I 
think anything you can do to help us with that.
    Mr. Owens. Mr. Child, looks like you have a comment.
    Mr. Child. Yes, yes, I would like--I would like to speak in 
favor of that type of movement. I'm not talking about a fast 
track to citizenship. Most of these people do not care to 
become citizens of the U.S., or if they do, that option could 
be there. But I don't think it should be fast tracked. It's not 
what the workers are interested in, nor is it politically going 
to happen.
    But we do have a trained work force in the country, and to 
start all over with new workers just to have a legal status 
would also be burdensome. I think there should be a provision 
to give these people that are currently here, illegally or not, 
the opportunity to stay and work in the country. They are doing 
the jobs that most Americans choose not to do.
    Mr. Owens. I'd like to go back to Mr. Ooms' statement, we 
either import labor or we import food. I yield back, Mr. 
Chairman.
    Mr. Osborn. Just a quick----
    The Chairman. The gentlemen, may finish. Yes, please.
    Mr. Osborn. Quick comment on that. One, the government 
doesn't have the infrastructure to do the paperwork for a new 
work force, if you kicked everybody out. So to have the ability 
to get legal working papers for people who are already in the 
country, who are already working would be an excellent thing to 
have.
    Mr. Owens. Thank you very much.
    The Chairman. The gentleman's time has expired. The chair 
now turns to the gentleman from Texas, which should be noted 
for the record, are amazed when they see the number of trees we 
have in Oklahoma in the third district. Mr. Conaway is 
recognized for 5 minutes. And a response before his 5 minutes 
begins.
    Mr. Conaway. Exactly. I actually--I gave the previous 
Chairman, Mr. Goodlatte, a picture of myself standing by the 
city limits signs of the city of No Trees, Texas, so in 
addition to snow this morning, there are even trees in it as 
well.
    Mr. Sullivan, I couldn't help but notice the name Isabella 
on, or Isabel, on your pink and white tote that you brought in, 
and much--and then your comments about the debt that we're 
laying on them and the struggles that we have across this 
entire country as to how we hand off the legacy, of the 
American legacy, to her--I'm assuming it's your daughter--to my 
grandchildren. I have seven grandkids, that legacy of debt that 
we are on the path to do that.
    I offered up the last farm bill, 2008, an amendment in 
Committee that would have said if you only get--if your check, 
your maximum check, that you get from the non-crop insurance 
portion of the support system is $100 or less, that you 
wouldn't get it. That the payments would have to be more than 
$100 or we wouldn't pay you.
    And we had a pitched battle in the Committee how cruel that 
was for me to argue that, that $100 was the difference between 
making it and breaking it on a farm. And in your comment, that 
the $30,000 for the Tree Assistance Program, while helpful, had 
you not had it you would still be growing apples today.
    And as we look at these programs, we need to focus on which 
ones--because we can't afford them all, what are those that are 
really the make/break kinds of issues involved. We fought them 
all the way down to $25 a check, so that, if the check is less 
than $25, which it costs USDA $30 to write each check, you 
don't get it.
    We stripped about $6 billion out of the Crop Insurance 
Program over the last couple of years. And I want to know if 
any of you have seen an impact on the private delivery system, 
that I think most of us support, where you've got private folks 
selling the insurance, doing the adjustments and working with 
you on those programs. Have you seen an impact yet from that 
reduction of some $6 billion from the crop insurance side?
    Mr. Osborn. I would just like to talk about the paperwork. 
Doing the--the grape--insuring grapes is, and I don't know 
about other crops, but when my insurance agent comes to talk to 
me about the crop insurance, he--he says what level do you 
want? Do you want 95 percent, 90s all the way down to 60, 50 
percent? And then I say, well, what's it going to cost? He 
goes, well, I don't really know because RMA hasn't really told 
us yet. I have a good idea.
    I mean, 5 years ago, they had no knowledge. Now they sort 
of have an idea, and they'll get up a quote and they'll say, 
here's your quote. And I'll say, okay, I'll take the 75 
percent, that one.
    Well, then that goes to RMA, and then they come back and 
say this is the price. And I only get one shot on that. If I 
don't like the price, then I--I don't get insured, or I have to 
take it. The insurance agents not having a clear picture of 
what the cost of that insurance is going to be is problematic.
    Mr. Sullivan. We're pleased with the Crop Insurance 
Program. USApple worked with RMA and the crop insurance 
providers to work to improve the apple policy. You will have 
some apple growers who say they're not happy with it, of 
course, and there's minor glitches in the system. But I mean, 
overall, it's a very functional program.
    As for how you save $6 billion----
    Mr. Conaway. No, no. We've already done that. I'm just 
saying what impact has that had? Have you seen the impact?
    Mr. Sullivan. Well, no, I have absolutely no idea. I did--
people in Kansas City at the RMA office are a great group of 
individuals. I worked with them and just appreciate the hard 
work that they do at that office. And they're really working 
very, very hard for the growing community.
    It may not seem that way, and you've got a lot of actuarial 
people in there who can do circles with numbers in there. But I 
mean, it's a good group. And I think as you're doing the Crop 
Insurance Program, you've got to get their insight in it. I 
mean, they've got oodles of experience.
    I mean, I want to tell you, yes, we need to be--color of 
the apples, I'm going to tell you that's a green apple versus a 
red apple, and we need to get some of the loss end of it. But 
when it comes to the number ends of it and how stuff is going 
to work on the actuarial thing, you really need to get RMA's 
involvement in there.
    Mr. Conaway. Mr. Eckhardt?
    Mr. Eckhardt. In delivery, I think that the private 
insurance company people have done a reasonably good job, even 
with some of the cuts that we've seen. I still say that our 
biggest issue is the fact that we have--if it's apples, an 
apple--have we got apples or we have grapes.
    But when you come to a diversified farm like my own, where 
we may have close to 30 crops or those people who are growing 
nontraditional crops like hops or, here in the Northeast, 
arugula or Belgian endive or the list just starts--goes from A 
to Z, arugula to zucchini, if you want to call it that.
    It's just one of the issues that perhaps the best people 
that have the best knowledge of the crops grown in that area is 
the FSA County Committee, and their input, and growers' input 
into what is a good yield, what's a good price, how can we 
insure this crop, would probably be best, a good way is spend 
some time with those people.
    Mr. Conaway. Thank you. Mr. Chairman.
    The Chairman. The gentleman's time has expired. The chair 
now turns to the gentlelady from Maine, Ms. Pingree, for 5 
minutes.
    Ms. Pingree. Thank you very much, Mr. Chairman.
    Thank you again to another wonderful panel for your 
articulate thoughts. I do want to take a quick aside here so 
this doesn't get lost, is follow-up on one of the dairy things.
    I didn't know before that Representative Gibson had entered 
into a cow milking contest, and I just want to challenge him 
here in his home district. I do have a blue ribbon and a red 
ribbon from a politician's cow milking contest and would ask if 
we can have a little match-up.
    The Chairman. The gauntlet is thrown down.
    Ms. Pingree. Exactly. Maine against New York.
    But thank you very much. As I said, I mentioned earlier 
that one of my interests on the aspects of local food and local 
production in the growing market there, but I also support all 
of my colleagues' questions on crop insurance.
    In the bill that I submitted, we asked the USDA to analyze 
this problem, because I do think there are a lot of good ideas 
and data out there. There are good thoughts from actuaries, 
farmers themselves, and I do think having a whole farm crop 
insurance program--Mr. Eckhardt, you've had a lot of good ideas 
for us today--but it would be very beneficial to many of the 
farmers that I represent. And I think we could resolve this 
issue with a little bit of resources put behind it and then 
provide something that would really be useful to many of the 
farms and the farms that are actually growing today.
    I also represent a lot of organic growers and as many of 
you in the room know, organic growers have to pay a premium, 
but then a reduced price when they recover anything from crop 
insurance, which is completely backwards and upside down. So I 
think there's an opportunity there, particularly, again, with 
this being a fast-growing market and a lot of investment being 
made in organic production today.
    So just to the panel generally, and any of you who have 
thoughts on this, as I mentioned, I'm interested in how we 
spend our resources on programs that allow you to expand in the 
local food market, to use more CSA, farmers' markets.
    Many of you have already talked about some of the areas 
where you're benefiting or using some of the programs that are 
out there. One thing I'm interested in is that there are about 
2,000 Farm-to-School Programs around the country that are 
providing more local foods for schools, also universities and 
hospitals. That's a great market and a local market.
    And I know there are some barriers there, and so I'm 
interested in that, but also just any of your input on these 
particular programs and where we should be directing our 
resources. I'll just open it up to any of you.
    Mr. Osborn. I'm a big proponent of local, just to talk a 
little bit about marketing, marketing to the American consumer, 
that buying local is important, not only from knowing where 
their food is coming from, but what the impact is.
    For every bottle of wine that you buy local, you return 
$10.60--or $10.05 to the local community. When you buy a wine 
from another country, you return 67 cents. So the impact of 
buying local is huge, and I don't think the American public 
really understands that, and I think that's probably the most 
important thing we need to do.
    The other is people have to understand the difference in 
cost. I had a Chilean grape grower in visiting last year, and 
he said to me, said, Scott, how much do you pay your vineyard 
help? And I said, well, I give them $10, $12 an hour plus 
medical benefits. And he sat there and looked at me, and he 
goes, wow, I pay mine, $8 a day.
    I can't compete with $8 a day. And I think the American 
public needs to understand that everybody needs a good living 
and we just can't compete with these people, and they shouldn't 
buy their products that are basically exploiting the workers.
    Ms. Pingree. Thank you for that. And I do think it helps to 
emphasize that this is a--this is a jobs issue, and especially 
in many of our local communities and certainly an economic 
benefit, so thank you for that. Go ahead.
    Mr. Child. One comment on encouraging local marketing: The 
State Specialty Crop Block Grants are a good avenue for that.
    In New York State, over the past few years, approximately 
20 percent of that block grant money has gone into marketing 
and promotion, much of which is on a, probably, a local type 
scale. It also has helped fund improvements at the Hunts Point 
Terminal market in New York City for those producers that 
choose to market there. So that is one approach that the 
Federal Government can help on that line.
    Mr. Eckhardt. And the research for the nutrition portion of 
it, especially when we talk about School Lunch Program, as we 
try to get more local products into our schools, collaborating 
with people so that we can use products. An apple is an apple 
from--if your school is right here locally and you produce 
apples locally, they should be able to use those local apples.
    The Vegetable Growers Association, along with several other 
groups, are trying to make cookies that go into School Lunch 
Programs. How do you make butternut squash into a really good 
nutritious cookie that kids want to eat? Like, you put 
chocolate chips in it.
    But the idea is that we try to come to these research 
things to help with School Lunch Programs and what makes 
children want to eat nutritious things. They have to taste 
good, they have to look good, they have to be good for them.
    Ms. Pingree. Okay. Thank you. I'm out of time, but thank 
you very much.
    The Chairman. The gentlelady's time has expired. We now 
turn for the final 5 minutes allotment to the gentleman from 
New York, Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman, and I thank the 
panel.
    It's just been very detailed, a productive testimony. I 
also want to take the opportunity on behalf of my colleague, 
Bill Owens, to thank our hosts here today, that the North 
Country Community College, very proud of this institution. 
Indeed, number one in the state, 22 in the nation.
    A few comments, and then I'll throw out the questions for 
the panelists. But it's certainly some discussion here this 
morning about our situation with deficit and debt, and I keenly 
appreciate what has been communicated this morning.
    It's so important, though, that we take a comprehensive 
approach to this, a thoughtful comprehensive approach, as we go 
about that very serious question in recognizing the fact that, 
even in the last 5 years there have already been significant 
savings in this area. And the fact that when you look at it in 
total outlays, you're talking \1/2\ of 1 percent of outlays 
into a sector of our economy that's so vitally important.
    Absolutely, we need to scrutinize every single program to 
make sure we're doing what's right, but we also recognize no 
farms, no food. We need to get this right or we're going to end 
up growing food overseas. So certainly appreciate that's not to 
negate anything that's been said here today, but just that how 
important it is we get that balance right.
    I want to make a few comments. This testimony, I deeply 
appreciate all that was communicated here.
    Disaster relief: we were hit very badly by a storm, 
including up here in the North Country, in August. And having 
the Emergency Conservation Program, the Emergency Watershed 
Program available to us, it took some fight to get that funding 
there, but it helped us in terms of debris removal, money for 
fences, for reimbursement there, and cleaning out streams.
    And Mr. Chairman, just say that going forward, I think it's 
important we budget for this because this was a situation we 
were at zero balance and it took us a couple of months to fight 
our way to get that money available. As we think about this 
bill, that we think about paying that forward, in making sure 
that those programs are available to us.
    But we also know that even after that assistance was 
available, we ran up against this insurance, so no farmer was 
made whole. And you know, Bill Owens put a marker down that we 
should pick up and continue to work, and he said, well, what 
would that template look like?
    And I've got here today a couple folks who work on my ag 
advisory panel who are also part of the New York Farm Bureau, 
Julie Suarez and Eric Ooms, and I'd ask that we think about is 
there some way that New York could work on a proposal that may 
flesh this out in greater detail, that we can get into the 
national narrative. Something to think about. Certainly, I have 
no tasking authority over you, but just to say that maybe we 
can work together on that to provide a recommendation.
    The next thing is, Mr. Eckhardt mentioned that NRCS, he was 
talking about the EQIP Program and that he thought it may be 
administered in the FSA. Mr. Chairman, that I just want to tell 
you that I move all about the 137 towns in my district. I do 
hear that quite often.
    I just want to submit it, that I want to reinforce and 
affiliate myself with the remarks of Mr. Eckhardt. And 
something to think about, it's really just a common sense 
approach, and recognize that this is looked at differently in 
different parts of the country. But here, we like to have our 
foot soldiers out and working issues, and then the folks who 
are helping facilitate, those are the ones who are helping with 
the paperwork. And that's sort of the view here in upstate New 
York as it relates to how we delineate duties.
    I might also say that it might be worth looking at, we're 
talking about bureaucratic reorganization, that we also 
consider the labor issue that we've talked about so much. And I 
know, Mr. Sullivan, we worked with you, you've come down to 
D.C. I appreciate that. We've worked with Mr. Owens, the New 
York delegation, as we try to sort through this. I wonder if 
that program, H-2A, isn't better administered in the USDA 
instead of the DOL. I think we might have more empathy in 
trying to solve the problem if it was the same folks who come 
from the farming community. Something to think about.
    I want to affiliate myself with remarks of Mr. Eckhardt in 
terms of FSA closings. You know, as the guy who was a soldier 
for many years, I think we should be looking to the 
headquarters in D.C. Before we come out here. You know, we have 
offices that have two people in it, but those two personnel are 
so vitally important to the farmers all throughout the 
community. And as we look to consolidate, I would say are there 
savings first that we can get in the headquarters before we 
come out to where we're actually providing the services?
    Organic was mentioned. I want to say today I had Mike 
Kilpatrick here. He's about 24 years old. He's an incredible 
young man, bright future ahead of him. Took a really hard hit 
in this storm. He represents the future, I think. He's just a 
representative of the future of organic farming in our area.
    We need to support him. And I'd ask Mike Kilpatrick, since 
we weren't able to get you as a witness here today, if you 
could provide your recommendations--I'd ask, Mr. Chairman, if 
we could submit that for the record for consideration.
    [The information referred to is located on p. 894.]
    Mr. Gibson. And I'm sorry about the lengthy statement, but 
I did want to make these points. And I just want to ask the 
panelists for--we haven't gotten on the record yet as far as 
the energy programs and broadband. These are just other areas 
where we can try to help the profitability in extending the 
reach of our agricultural community. I'd ask that--we've had 
some farmers in our district take advantage of the energy 
incentives, none of which were in the USDA, somewhere in 
Treasury, to help with photovoltaic--to help drive down energy 
costs. I'd ask for any kind of comment from the panelists.
    The Chairman. And a prompt answer would be appreciated.
    Mr. Osborn. Which kind of answer? A short one?
    I think there should be more funds devoted to help either 
with tax credits or something for alternative energy. You know, 
at this point in time, I'm considering working out a solar 
project. I'd like to have the whole farm to be solar. But it's 
pretty hard to work out the numbers to come up with $150,000 to 
put in a solar thing. To wait for tax credits down the road is 
problematic.
    I'm working with a leasing company. If I can get the lease 
prices down, below what my cost of utility would be, I would do 
that.
    But I just want to address the FSA closings. In Yates 
County, we're losing our FSA office, and it's going to be 
tragic. There are a lot of Mennonites in our county and these 
folks use horse and buggy, and for them to have to now travel 
25 to 30 miles in a horse and buggy is really problematic. And 
we only have two people in the office, and they're very, very 
effective. And they're very communicative, they stay on top of 
every farmer, and we know exactly what's going on. And to lose 
that is going to be tragic in Yates County.
    Mr. Eckhardt. Just real quick, probably the most important 
crop that every farm in this area of the Northeast produces is 
their children. And without the ability to put these young 
people in a position of responsibility for working on our 
farms, whether they're our own kids or our neighbors', we've 
had three generations of young people that have worked for us: 
Their grandparents, their parents and now the kids are working 
for us. And I think as we go forward, if we're going to have 
anybody take over in agriculture, we've got to have young 
people involved in agriculture, and we can't exclude them. A 14 
year old with a size 15 shoe at 6 1" is not an infant.
    The Chairman. The gentleman's time has expired, the panel's 
time has expired. The chair would like to note that before we 
adjourn it has been my custom to allow the Members whose 
district we are in a closing comment. Not all of us are 
fortunate enough to live in New York State and we are 
scattering to the airports very shortly. Mr. Owens, 2 minutes, 
sir.
    Mr. Owens. Thank you, Mr. Chairman.
    First, again, thank you to all of you for attending today. 
Thank you to the panelists.
    I want to say that from my perspective, I enjoyed listening 
and learning today. This is very important to all of us to 
bring back to Washington. I also want to say as we talk much in 
Washington about buy America, this is the penultimate product 
to be purchased in America. And Mr. Osborn, your suggestion 
that we buy America, particularly in the wine area, where 
you're competing with other countries at a cheaper price, I 
think we all should take that to heart. We also should focus on 
that when we're going into Wal-Mart and other places and we're 
picking up foreign made products.
    Thank you very much, Mr. Chairman.
    The Chairman. The gentleman yields back. I would note to 
all of our good folks participating in the back of the room 
today in this hearing, anyone watching or listening, you can 
visit the House Agricultural Committee's website to learn more 
about the 2012 Farm Bill. In addition, you may submit comments 
to be considered a part of the Committee's field hearing 
record. Your comments must be submitted using the website 
address by May 20, 2012, and that is http://
agriculture.house.gov/farmbill. Look it up on our website.
    Under the rules of the Committee, the record for today's 
hearing will remain open for 30 calendar days to receive 
additional material and supplemental written responses from 
witnesses to any questions posed by a Member.
    This hearing of the Committee on Agriculture is adjourned.
    [Whereupon, at 11:57 a.m. (EST) the Committee was 
adjourned.]


   THE FUTURE OF U.S. FARM POLICY: FORMULATION OF THE 2012 FARM BILL

                              ----------                              


                         FRIDAY, MARCH 23, 2012

                          House of Representatives,
                                  Committee on Agriculture,
                                                     Galesburg, IL.
    The Committee met, pursuant to call, at 9:00 a.m. (CDT), in 
the Gymnasium, Building F, Carl Sandburg College, 2400 Tom L. 
Wilson Boulevard, Galesburg, Illinois, Hon. Frank D. Lucas 
[Chairman of the Committee] presiding.
    Members present: Representatives Lucas, Conaway, Hultgren, 
Schilling, and Boswell.
    Staff present: Bart Fischer, Tamara Hinton, John Porter, 
Matt Schertz, Nicole Scott, Debbie Smith, Pelham Straughn, John 
Konya, Margaret Wetherald, C. Clark Ogilvie, and Caleb 
Crosswhite.

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    The Chairman. This hearing of the Committee on Agriculture 
entitled, The Future of U.S. Farm Policy: Formulation of the 
2012 Farm Bill, will come to order.
    Good morning and thank you all for joining us today for 
this farm bill field hearing. And I would like to thank 
Congressman Schilling for hosting this hearing here in 
Illinois.
    These field hearings are a continuation of what my friend 
and Ranking Member Collin Peterson started in the spring of 
2010. Today, we will build upon the information we gathered in 
those hearings, as well as 11 farm policy audits we conducted 
this past summer.
    We used those audits as an opportunity to thoroughly 
evaluate farm programs to identify areas where we could improve 
efficiency.
    The field hearings serve a slightly different purpose 
though. Today, we are here to listen.
    I talk to producers all the time back in Oklahoma. I see 
them in the feed store and I meet with them at my town hall 
meetings. And of course I get regular updates from my boss back 
home on the farm. Yes, that is Linda Lucas. But the conditions 
and crops in Oklahoma are different than what you will find 
here in Illinois.
    And one of the reasons we hold field hearings is to get a 
sense of the diversity of agriculture across this great 
country.
    Let me tell you--in some ways, Illinois and my home state 
of Oklahoma could not be more different. Back home--and I say 
this respectfully--back home, we do not measure our soil in 
feet and our rain in inches like you do here. That is called a 
little bit of envy.
    The broad range of agricultural production makes our 
country strong, and it also creates challenges when you are 
trying to write a single farm bill to support so many different 
regions and so many different commodities.
    While each sector has unique concerns when it comes to farm 
policy, I would like to share some of my general goals for the 
next farm bill.
    First and foremost, I want to give producers the tools to 
help you do what you do best, and that is produce the safest, 
most abundant, most affordable food supply in the world.
    To do this, we must develop a farm bill that works for all 
regions and all commodities. We have repeatedly heard that a 
one-size-fits-all program will not work. I can tell you from 
experience that what works here in Illinois will not work as 
well for my constituents in Oklahoma. So the commodity title 
must give producers options so that they can choose the program 
that works best for them.
    I am also committed to providing a strong crop insurance 
program. The Committee has heard loud and clear about the 
importance of crop insurance and we believe it is the 
cornerstone of the safety net. Today, we hope to hear how we 
can improve crop insurance.
    And last, we will work to ensure that producers can 
continue using conservation programs to protect our natural 
resources. I am interested to hear how producers in this area 
of the country use the conservation programs. I am particularly 
curious as to your thoughts on how to simplify the process so 
they are easier for farmers and ranchers to use.
    Beyond those priorities, I know there are a number of 
universal concerns facing agriculture across the country.
    For instance, my producers in Oklahoma are concerned and 
worried about regulations coming down from the Environmental 
Protection Agency and how they must comply with those 
regulations.
    I am also aware that the death tax is creating difficulties 
for farming operations. And I want to hear how these Federal 
policies are affecting producers here.
    Today, we will hear from a selection of producers. 
Unfortunately, we just do not have time to hear from everybody 
who would like to share their perspective. But we have a place 
on our website where you can submit those comments in writing. 
You can visit agriculture.house.gov/farmbill to find that 
place. And you can also find the address on the postcards 
available on the table here.
    As I said before, we do not have an easy road ahead of us. 
But I am confident that by working together, we can craft a 
farm bill that continues to support the success story that 
American agriculture is.
    [The prepared statement of Mr. Lucas follows:]

Prepared Statement of Hon. Frank D. Lucas, a Representative in Congress 
                             from Oklahoma
    Good morning, and thank you all for joining us today for this farm 
bill field hearing. I'd also like to thank Congressman Schilling for 
hosting this hearing here in Illinois.
    These field hearings are a continuation of what my good friend and 
Ranking Member Collin C. Peterson started in the spring of 2010. Today, 
we'll build upon the information we gathered in those hearings, as well 
as the 11 farm policy audits we conducted this past summer.
    We used those audits as an opportunity to thoroughly evaluate farm 
programs to identify areas where we could improve efficiency.
    The field hearings serve a slightly different purpose. Today, we're 
here to listen.
    I talk to producers all the time back in Oklahoma. I see them in 
the feed store and I meet them at my town hall meetings. And of course, 
I get regular updates from my boss back on our ranch. But the 
conditions and crops in Oklahoma are different than what you'll find 
here in Illinois.
    One of the reasons we hold field hearings is to get a sense of the 
diversity of agriculture across this great country.
    Let me tell you--in some ways, Illinois and my home state of 
Oklahoma couldn't be more different. Back home, we don't measure our 
soil in feet and our rain in inches like you do here.
    The broad range of agricultural production makes our country 
strong, but it also creates challenges when we're trying to write a 
single farm bill to support so many different regions and commodities.
    While each sector has unique concerns when it comes to farm policy, 
I'd like to share some of my general goals for the next farm bill.
    First and foremost, I want to give producers the tools to help you 
do what you do best, and that is to produce the safest, most abundant, 
most affordable food supply in the world.
    To do this we must develop a farm bill that works for all regions 
and all commodities. We have repeatedly heard that a one-size-fits-all 
program will not work. I can tell you from experience that what works 
here in Illinois won't work as well for my constituents in Oklahoma.
    So the commodity title must give producers options so that they can 
choose the program that works best for them.
    I also am committed to providing a strong crop insurance program. 
The Committee has heard loud and clear about the importance of crop 
insurance and we believe it is the cornerstone of the safety net. 
Today, we hope to hear how we can improve crop insurance.
    Last, we'll work to ensure that producers can continue using 
conservation programs to protect our natural resources.
    I'm interested to hear how producers in this area of the country 
use the conservation programs. I'm particularly curious as to your 
thoughts on how to simplify that process so they are easier for our 
farmers and ranchers to use.
    Beyond those priorities, I know there are a number of universal 
concerns facing agriculture across the country.
    For instance, my producers in Oklahoma are worried about 
regulations coming down from the Environmental Protection Agency (EPA) 
and how they must comply with those regulations.
    I'm also aware that the death tax is creating difficulties for 
farming operations. I want to hear how these Federal policies are 
affecting producers here.
    Today, we'll be hearing from a selection of producers. 
Unfortunately, we just don't have time to hear from everybody who would 
like to share their perspective. But we have a place on our website 
where you can submit those comments in writing.
    You can visit agriculture.house.gov/farmbill to find that place. 
You can also find that address on the postcards available on the table 
here.
    As I said before, we don't have an easy road ahead of us. But I'm 
confident that by working together, we can craft a farm bill that 
continues to support the success story that is American Agriculture.

    The Chairman. And with that, I would like to turn to my 
colleague, my senior Democratic Member at the hearing today, 
for any opening statement that he may offer. The gentleman from 
Iowa, Mr. Boswell.

OPENING STATEMENT OF HON. LEONARD L. BOSWELL, A REPRESENTATIVE 
                     IN CONGRESS FROM IOWA

    Mr. Boswell. Well, thank you, Mr. Chairman, and thank all 
of you for being here. I am not trying to stand in for the 
Ranking Member Collin Peterson, but I am very pleased to be 
here.
    This will probably surprise our Chairman, I do not think so 
though--might embarrass him. But I think we have an excellent 
Chairman of the Agriculture Committee that is committed to 
making it the best we can make it. And I like what he just 
said, I want to repeat it in my own words.
    You know, everybody in this country--everybody in this 
country--has a vested interest in agriculture. We all eat. And 
we are not making more land, we are making a lot more people. 
And I will comment just very briefly, but what we all get, 
whether it is that guy or lady in downtown New York or L.A. or 
Dallas or wherever, is the most plentiful, least expensive, 
safest food in the world. Make no mistake about it. Does not 
seem like it when you go to the grocery store, but that is 
true. Just check it out. So we are all invested in it and we 
ought to be appreciative of that and remember how important it 
is to all of us. And that is something I think we all need to 
be promulgating constantly, so I hope you will do that.
    It is kind of neat for me to be back in Galesburg, it has 
been a long time. I came here one time with a Farm Progress 
Show. Now that takes you back a few years, some of you. Was 
anybody here at the Farm Progress Show? Well, I had just gotten 
out of spending a career in the military, come home and started 
farming again and I bought me a motorcycle, and I brought about 
six guys on motorcycles to Galesburg and we arrived--it has 
been a number of years ago--pouring down rain and muddy on the 
grounds and everything. And here I am on a two-wheeler trying 
to get around and find a place to park where when you put the 
kickstand down, it will not just sink.
    [Laughter.]
    Mr. Boswell. But so much for that. It was a good experience 
and I feel some real affection for it and you do a lot of 
things here like we do, just a little bit west of here.
    Chairman Lucas made a comment about his soils and so on 
from Oklahoma. Well, I spent a lot of time at Fort Sill, not 
too far from him--a lot of time. I have some stewardship over 
some land. We measure topsoil by the inch as well. So everybody 
thinks Iowa's topsoil it is feet. Well, some places it is and 
some places it is here in Illinois, but not everywhere.
    The farm program is very important to us and I am just 
going to close here and just say this: there is room for 
everybody in this. You know, I was in the state legislature on 
the Agriculture Committee and got very involved. I came back to 
do what I love to do and that is agriculture. We have gone 
through a time when there is production agriculture, 
sustainable agriculture, organic agriculture, so on. And there 
has been a lot of head bumping over it. Let me tell you this is 
what I think, I think there is room for all of us. We can stop 
that, we do not need to do that. The farmers' markets are 
growing like crazy, people want that. The population growth is 
unbelievable. We are going to be stressed to be able to provide 
food and fiber for the people of this world. There is room for 
all of us. So let's work together and let's make it the best we 
can.
    And I certainly agree that the safety net is what we are 
probably going to be focused on. I think I will be interested 
in what you have to say so that we understand. You know, 
Federal crop insurance is available, affordable and so on, and 
make it work.
    So I am just very pleased to be here, Mr. Chairman, I want 
to thank you. I am glad to be in my colleague's district, I 
appreciate it. I am anxious to hear what you have to tell us so 
we can do the best we can with the leadership of the Chairman 
here to bring forth a farm bill.
    The Chairman. The gentleman from Iowa yields back his time 
and I appreciate those very thoughtful words, and we now turn, 
as is my custom when we are doing a field hearing, to the 
Member who represents the district that we are in. You would be 
impressed at how hard and diligently he worked to help make 
sure that the Agriculture Committee came to his district, the 
gentleman from Illinois, Mr. Schilling is recognized.

OPENING STATEMENT OF HON. ROBERT T. SCHILLING, A REPRESENTATIVE 
                   IN CONGRESS FROM ILLINOIS

    Mr. Schilling. Thank you, Mr. Chairman.
    First, I would like to start out, this week the Illinois ag 
community lost a very special woman and I wanted to dedicate 
this opening statement to her. Maralee Johnson was an effective 
voice for the Illinois Beef Association. Her kindness and 
passion were always appreciated and her efforts for beef 
producers across this state will be remembered. Our strongest 
thoughts and prayers go out to her family. And with that, this 
one is for Maralee.
    First, I want to thank Chairman Lucas for holding this farm 
bill hearing. I also want to welcome my colleagues, Congressmen 
Boswell, Conaway and Hultgren. Thank you for coming and welcome 
to the Illinois 17th District.
    This district is blessed with some of the most fruitful and 
productive soil in the world. In fact, when it comes to the 
value of sales for corn and soybeans, we rank 14th out of 435 
Congressional Districts. We host the Farm Progress Show every 
other year. We are home to ag manufacturers John Deere and 
Caterpillar and are among the leading districts for livestock 
in the country. In short, we are an agricultural powerhouse.
    I cannot tell you how much our community appreciates the 
opportunity to be one of four locations throughout this great 
nation to discuss the next farm bill. It is good to see that we 
have some friends from Iowa, Indiana, Ohio, Minnesota in 
attendance with us today as well.
    Before we get started, I also want to thank the fine folks 
at Carl Sandburg College for opening up their doors for this 
event. I especially want to thank President Lori Sundberg, 
Julie Van Fleet, Bill Gaither, Aaron Frey, Robin DeMott, Mary 
Ann Nelson, Anthony Law of the campus security, Bobby 
Frederick, my ag specialist and the countless others who helped 
set this up. Many thanks to the Knox County Sheriff's 
Department and the Galesburg Police Department as well.
    I also want to recognize a great leader in the community, 
the Mayor of Galesburg, Mayor Sal Garza. We really appreciate 
all the efforts that he helps with our community to bring and 
liven up our economics here.
    Again, I want to welcome all of our farmers, producers, 
guests and witnesses here today. I have the honor of 
representing Deb Moore from Roseville, Dave Erickson from 
Altona, Gary Asay from Osco and Terry Davis from Roseville, all 
of whom are here to testify today.
    I look forward to hearing from all of you about the 2008 
Farm Bill, how it has been effective and how we can improve the 
future or ag.
    Before we get to the testimony, I wand to address the issue 
of bipartisanship and offer insight to the question that almost 
all of you are asking. Can Congress get a farm bill done this 
year? In the spirit of Mark Twain, reports of the death of 
bipartisanship have been greatly exaggerated. After all, it was 
this Congress that passed the three free trade agreements, 
repealed the onerous 1099 tax reporting requirement, passed the 
VOW to Hire Heroes veterans jobs bill, passed the STOCK Act, 
passed a 4 year FAA reauthorization, and passed a defense bill 
that will promote workload and jobs for Rock Island Arsenal. 
All of these laws were bipartisan, I might add.
    Do we have our work cut out for us? Absolutely. But this is 
a bipartisan Committee and we will work together to produce a 
farm bill that works great for America. We have an economy 
struggling to regain its footing and a budget crisis to solve. 
Fortunately, ag has been very, very bright for us; yet, we know 
the economic production and cycles in ag require us to plan for 
the future.
    At $136.3 billion in 2011, ag exports have never been 
higher, and according to the USDA, for every $1 billion in ag 
exports, that provides for 8,400 related jobs for men and women 
here and across America. That is why it is so important that 
the next farm bill continue to allow producers to do what they 
do best. At a time when rural populations are looking for new 
ways to grow our communities, our voice must be stronger than 
ever and I believe this Committee is up to the task.
    With that, Mr. Chairman, I look forward to listening to our 
farm panels today. I yield back.
    [The prepared statement of Mr. Schilling follows:]

  Prepared Statement of Hon. Robert T. Schilling, a Representative in 
                         Congress from Illinois
    Thank you Mr. Chairman.
    The Illinois Ag Community lost a very special woman this week and I 
want to dedicate this opening statement to her.
    Maralee Johnson was an effective voice for the Illinois Beef 
Association. Her kindness and passion were always appreciated--and her 
efforts for beef producers across this state will be remembered.
    Our strongest thoughts and prayers go to her family. And with that, 
this one is for Maralee.
    I want to thank Chairman Lucas for holding this farm bill hearing. 
I also want to welcome my colleagues, Congressmen, Boswell, Conaway and 
Hultgren.
    Thank you for coming and welcome to Illinois' 17th District.
    This District is blessed with some of the most fruitful and 
productive soil in the world. In fact, when it comes to the value of 
sales of corn and soybeans, we rank 14th out of 435 Congressional 
Districts.
    We host the Farm Progress Show every other year, are home to ag 
manufacturers John Deere and CATERPILLAR, and are among the leading 
districts for livestock in the country.

    In short, we are an agricultural powerhouse.

    I can't tell you how much this community appreciates the 
opportunity to be one of the four locations throughout this great 
nation to discuss the next farm bill. It's good to see that we have 
some friends from Iowa, Indiana, Ohio and Minnesota in attendance today 
as well.
    Before we get started, I also want to thank the fine folks of Carl 
Sandburg College for opening up their doors for this event. I 
especially want to thank:

    President Lori Sundberg,

    Julie Van Fleet,

    Bill Gaither,

    Aaron Frey,

    Robin DeMott,

    Mary Ann Nelson,

    Anthony Law of Campus Security,

    And countless others who helped set up this great venue.

    Many thanks to the Knox County Sheriff's Department and the 
Galesburg Police Department as well.
    Again, I want to welcome all of our farmers, producers, guests and 
witnesses here today.
    I have the honor of representing Deb Moore from Roseville, Dave 
Erickson from Altona, Gary Asay from Osco and Terry Davis from 
Roseville--all of whom are here to testify today.
    I look forward to hearing from all of you about how the 2008 Farm 
Bill has been working and how we can improve things for the future of 
Agriculture.
    Before we get to testimony, I want to address the issue of 
bipartisanship and offer insight to the question that almost all of you 
are asking . . . ``Can Congress get a farm bill done this year?''
    In the spirit of Mark Twain, reports of the death of bipartisanship 
have been greatly exaggerated.
    After all, It was THIS Congress that:

    passed the THREE FREE TRADE AGREEMENTS,

    repealed the onerous 1099 tax reporting requirement,

    passed the VOW to Hire Heroes veterans' jobs bill,

    passed the STOCK ACT,

    passed a FOUR-YEAR FAA reauthorization

    and passed a Defense bill that will promote workload and jobs at 
    the Rock Island Arsenal.

    All of these laws were bipartisan I might add.
    Do we have our work cut out for us? Absolutely. But this is a 
bipartisan Committee and we will work together to produce a farm bill 
that works for America.
    We have an economy struggling to regain its footing, and a budget 
crisis to solve. Fortunately agriculture has been a very bright spot, 
yet we know the economic and production cycles in agriculture require 
us to plan carefully for the future.
    At $136.3 billion dollars in 2011--ag exports have never been 
higher. And according to USDA--every $1 billion in AG exports provides 
for 8,400 related jobs for men and women here in America.
    That is why it is so important that the next farm bill continue to 
allow producers to do what they do best.
    At a time when rural populations are looking for new ways to grow 
our communities, our voice must be stronger than ever and I believe 
this Committee is up to the task.
    With that Mr. Chairman, I look forward to listening to our farm 
panels today.

    The Chairman. Thank you, Congressman Schilling, for 
yielding back.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony, and to ensure there is ample time for 
questions.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota
    As we approach the current farm bill's expiration date, we will 
hear directly from farmers and ranchers across the country on the 
issues they face every day.
    Writing a new farm bill will not be an easy task. Everybody is 
being asked to do more with less, and, it seems to me, that agriculture 
is being asked to cut even more than others. I'm particularly troubled 
by the House Republican budget released this week which, in addition to 
massive cuts to agriculture and nutrition programs, includes 
reconciliation instructions asking our Committee to make unrealistic 
budget cuts. I just don't see how we can make these cuts and then turn 
around to write a strong farm bill.
    The agriculture economy is perhaps the only part of our nation's 
economy that has remained strong over the last few years. It is amazing 
to me that those outside of agriculture are trying to mess this up.
    Passing a farm bill this year or even next year if it comes to 
that, is going to be incredibly difficult. We need producers of all 
regions, representing all commodities, to work together to get a new 
farm bill across the finish line.
    I thank the witnesses for making the time to testify hear today.

    The Chairman. I would like to welcome our first panel of 
witnesses to the table--Mr. David C. Erickson, corn and soybean 
producer, Altona, Illinois; Ms. Deborah L. Moore, corn, 
soybean, and beef producer, Roseville Illinois; Mr. John Mages, 
corn and soybean producer, Belgrade, Minnesota; Mr. Blake 
Gerard, rice, soybean, wheat, and corn producer, McClure, 
Illinois; and Mr. Craig Adams, corn, soybean, wheat, hay, and 
beef producer--you are a busy man--Leesburg, Ohio.
    Mr. Erickson, please begin when you are ready.

  STATEMENT OF DAVID C. ERICKSON, CORN AND SOYBEAN PRODUCER, 
                           ALTONA, IL

    Mr. Erickson. Thank you. My name is David Erickson, I am a 
Knox County farmer from Altona, Illinois. And as a life long 
resident here in Knox County, I want to welcome the Committee 
and in particular Chairman Lucas, Ranking Member Peterson, all 
the other Members of the Committee. We appreciate your 
commitment to come here to our community for this hearing. And 
in particular, I want to thank Congressman Schilling for his 
persistence in not only serving the district, but in making 
sure that this all-important hearing is here, as well as the 
work of his staff. Thank you very much.
    My wife Nancy and I operate a corn and soybean farming 
operation and a farm management business that serves absentee 
landowners. Our businesses are truly family owned and 
established through the work of the previous two generations of 
our families. We continue to enjoy the involvement of three 
generations of our families in production agriculture and work 
with multi-generations of landowners through our farm 
management business. We are extremely optimistic about the 
future of agriculture.
    I believe that farm businesses should be rewarded for their 
work in the global marketplace and that we need to continue to 
support efforts to open, develop and further expand markets for 
agricultural products and commodities, both domestically and 
globally. The impacts that these products have had here locally 
is beyond question. Agricultural exports support jobs here at 
home and particularly when we add value through enhancing our 
basic commodities.
    I urge Congress to continue to support trade agreements and 
initiatives that provide increased access, improved acceptance 
and fair trade policies for U.S. agriculture. Congress has an 
important job ahead of it.
    As farmers, we protect and enhance our environment because 
we know the importance of sustained rich soil and clean water 
that supports our family and our consuming public. Some current 
conservation programs are over-burdened with rules and 
procedures and do little to impact programs except use up 
limited budget allocations. I urge Congress to consider 
simplifying, consolidating our current conservation programs to 
allow for the most effective use of those funds budgeted for 
these efforts.
    As a taxpayer, I want Congress to cut spending, reduce 
waste and improve results with our investment. I believe that 
the Federal budget deficits must be eliminated and debt 
reduced. I feel strongly that agriculture should do its part to 
help Congress in this endeavor.
    I know that much of the discussion to date about the farm 
bill has led to proposed elimination of direct payments. While 
I understand the need for change, I also must report how direct 
payments in our farming operations are beneficial and 
effective. Without the assistance of any other government 
programs, we invested these direct payments back into our 
farming operation to reduce soil erosion, improve drainage, 
limit nutrient runoff and manage price risk. We made effective 
use of those dollars and taxpayers reap the rewards with a 
safe, abundant, low cost supply of food and fiber.
    I understand the importance of Federal crop insurance as a 
part of risk management and I know that too much emphasis also 
on any single approach can be dangerous. Federal crop insurance 
should provide risk coverage for crop losses but not for poor 
marketing and overall risk management. Farming is a risky 
business. We need tools to help us manage these risks but those 
risks can never be totally eliminated.
    I urge you to consider streamlining farm program paperwork. 
A vast majority of Illinois farmland is owned by someone other 
than who physically operates it. Absentee landowners are 
reaching the end of their desire to comply with all the 
requirements of farm program participation. Their frustration 
will only lead to lower participation and the increased 
likelihood of cash only rental arrangements that do nothing but 
compound the risk already that farmers must bear.
    I encourage your continued work to complete the farm bill 
legislation this year and to make it a 5 year program that does 
not rely on temporary extensions. No aspect of the commodity 
title fits all operations or regions, but I trust you to work 
diligently to craft legislation that provides flexibility for 
the inherent diversity that encompasses U.S. agriculture.
    I thank you for the privilege to address the Committee and 
appreciate the great efforts involved in bringing this hearing 
to my home.
    Thank you.
    [The prepared statement or Mr. Erickson follows:]

  Prepared Statement of David C. Erickson, Corn and Soybean Producer, 
                               Altona, IL
    My name is David C. Erickson. I am a Knox County farmer from 
Altona, Illinois. As a life-long Knox County resident, I want to extend 
a warm welcome and sincere appreciation to Chairman Lucas, Ranking 
Member Peterson and all the Members of the Committee for bringing this 
most important Field Hearing to Galesburg. I applaud your efforts to 
seek input from constituents on the important issues facing agriculture 
policy and your willingness to bring the inner workings of Congress to 
the people in their home communities. I also want to recognize the 
efforts of Congressman Schilling and his staff for their persistence in 
serving the 17th Congressional District in Illinois and in hosting the 
Committee in the District for this important Farm Policy Hearing. I am 
very proud of Knox County and hope that you will find the people here 
friendly, engaged and thoughtful just as I have.
    My wife, Nancy, and I operate a corn and soybean farming operation 
and manage farmland for absentee landowners with our farm management 
business. Our businesses are truly family owned and were established 
through the work of the prior two generations in our families. We 
continue to enjoy the involvement of three generations of our families 
in production agriculture and work with multiple generations of active 
landowner participation in our farm management business. We are 
extremely optimistic about the future of the agriculture industry and 
are confident in the ability of the agriculture industry to support a 
significant portion of our local, state and national economy.
    After college and a 4 year experience as a high school and 
community college teacher, I began to farm full-time in 1984 with the 
1985 crop year being my first full season. Production and prices have 
certainly changed considerable from that era of sub $2 corn, sub $5 
soybeans and idled acres (set aside) of 10% to 20% very common. Through 
many years of involvement in leadership positions in agriculture 
organizations, I have had the opportunity to participate in Farm Policy 
discussions and have been actively involved with farm bills since 1990. 
The change from one farm bill to the next has been mostly evolutionary, 
but looks rather revolutionary from a rearview perspective. I enjoy 
farm policy discussions and still find the process as interesting as it 
was to me that first time.
    I believe that farm businesses should be rewarded for their work in 
the global marketplace. I continue to support the efforts to open, 
develop and further expand markets for all agriculture commodities both 
domestically and globally. I know that historical efforts to limit 
production to improve prices only hurt U.S. production capabilities and 
encouraged our competitors. I have no doubt that through research, 
development and challenging competition, farmers will meet the growing 
needs and tastes of the world population. We are a country of many 
resources and our ability to effectively use those resources will be 
paramount to our future and that of our neighbors throughout the world. 
Agricultural exports support jobs here at home particularly when we add 
value to those basic commodities through processing and enhancements. 
U.S. agriculture must be allowed to participate in the growing global 
marketplace. I urge Congress to continue to support trade agreements 
and initiatives that provide increased access, improved acceptance and 
fair trade policies for U.S. agriculture products and commodities.
    Congress must limit unnecessary and burdensome regulations that 
increase costs, reduce productivity and decrease opportunities for 
current and future generations. Something as simple as protecting young 
people from the threat of workplace accidents or abusive working 
conditions can lead to over-regulation that sacrifices developing a 
strong work ethic in our youth. Young people must be allowed to learn 
how to work and work safely or we risk losing an effective, motivated 
workforce in future generations. Work on the family farm is rewarding 
and builds life lessons that lead to future successes for young people. 
Employers have long recognized the strong work ethic of young people 
from rural areas as a positive skill for future employees. Regulations 
protect us in everyday life, but when overused, serve no purpose to a 
productive society.
    We must be prudent stewards of our natural resources. Farmers 
protect and enhance our environment, because they know the importance 
of sustaining the rich soil and clean water that supports their family 
and the consuming public. I feel that conservation programs are 
important to the farm policy decisions that we make. Some current 
conservation programs are overburdened with rules, procedures and 
standards that do little to impact the programs except to use up 
limited budget allocations. Congress must not lose sight of the 
positive impact that past voluntary incentive conservation programs 
have provided. I urge Congress to consider simplifying and 
consolidating current conservation programs to allow for the most 
effective use of funds budgeted to these efforts.
    As a taxpayer, I want Congress to cut spending, reduce waste and 
improve results with our investment. I believe that Federal budget 
deficits must be eliminated and debt reduced. I feel strongly that 
agriculture should do its part to help Congress achieve those goals.
    I know that much of the discussion to date about the new farm bill 
has lead to the proposed elimination of direct payments. While I 
understand the need for change, I must also report to you how direct 
payments in our farming operations were beneficial and cost effective. 
As farmers and farmland owners, we used those payments to implement 
conservation plans, develop needed grassed waterways, utilize grid soil 
sampling to manage nutrient use, invest in equipment upgrades for 
conservation and no-till farming while also developing risk management 
marketing practices. Without the assistance of any other programs, we 
invested these direct payments back into our operation to reduce soil 
erosion, improve drainage, limit nutrient run-off and manage price 
risk. We made effective use of those dollars and taxpayers reap the 
rewards of a safe, abundant, low cost supply of food and fiber.
    A reasonable safety net must still be a part of the farm bill to 
ensure that production agriculture can withstand the inevitable 
variability in prices and production, neither of which are in our 
complete control. I understand the importance of Federal Crop Insurance 
as a part of risk management, but I also know that too much emphasis on 
any single approach to risk management is dangerous. We have not used 
Federal Crop Insurance because the associated cost has not calculated 
into a sound business decision for us. We have worked to improve our 
financial stability, we are fortunate to have long term relationships 
for land rental and our environment has produced fairly consistent 
yields. There may have been times when we might have received insurance 
payments, but those payments would pale in comparison to the 
accumulated cost of premiums over the years. Federal Crop Insurance 
should provide risk coverage for crop losses, but not for poor 
marketing and overall risk management. Farming is a risky business 
subject to weather, price, political, trade, speculation and other 
influencing factors. We need tools to help us manage these risks, but 
those risks can never be nor should be totally eliminated.
    I urge you to consider streamlining farm program paperwork and the 
near endless amount of information that must be provided. A vast 
majority of Illinois farmland is owned by someone other than who 
physically operates the land. Absentee landowners are reaching the end 
of their desire to comply with all of the requirements for farm program 
participation. Their frustration will only lead to lower participation 
or increase the likelihood of cash only rental arrangements which only 
compounds the risk that farmers must bear.
    I encourage your continued work to complete the farm bill 
legislation this year and to make it a 5 year program that does not 
rely on a temporary extension. All the programs contained within the 
legislation must have the ability to plan for the future and know that 
a multi-year farm bill is the key to that confidence. No aspect of the 
commodity title fits all operations or regions. I trust you to work 
diligently to craft legislation which provides flexibility for the 
inherit diversity that encompasses U.S. agriculture.
    I thank you for the privilege to address the Committee today and 
appreciate the great efforts required to bring this important hearing 
to my home.

    The Chairman. Thank you, Mr. Erickson.
    Ms. Moore, you may begin when you're ready.

    STATEMENT OF DEBORAH L. MOORE, CORN, SOYBEAN, AND BEEF 
                    PRODUCER, ROSEVILLE, IL

    Ms. Moore. Good morning. I would like to start by thanking 
Chairman Lucas, Congressman Peterson, Congressman Schilling, 
and the other Members of the Committee for the opportunity to 
testify here today.
    My name is Deb Moore. I farm near Roseville in western 
Illinois with my husband, Ron, and his brother, Larry. We farm 
about 2,000 acres of corn and soybeans and have a beef cattle 
operation.
    I thank you for the opportunity to talk about the value and 
importance of farm programs to operations like ours. For more 
than 30 years, we have been active family farmers who are 
concerned about caring for our land and sharing our farm story. 
I was actually born and raised in Chicago suburbs and moved to 
the farm after marrying Ron, who is a third generation Warren 
County farmer.
    Farmers like us face many challenges and opportunities in 
today's global marketplace. We must continue to become more 
efficient and also manage more risk. As crop prices have 
increased over the last couple of years, so have expenses. We 
must find ways collectively to manage these risks.
    From 2010 to 2011, our income increased 50 percent but our 
expenses increased 58 percent. Our major expenses each year are 
cash rent, fertilizer, seed and crop protectants. All of these 
have doubled in cost over the last few years. Last year, we 
purchased all of our farm inputs for our 2012 crop, a full year 
before that crop will need to be harvested.
    Another major challenge we face is educating consumers 
about agriculture and the importance of our industry to food 
production and the economic well-being of our country. I am 
involved with Ag in the Classroom programs and Illinois Farm 
Families.
    Illinois Farm Families invited Chicago moms to have their 
questions about food and farming answered by Illinois farmers. 
After making their own judgment about our methods and 
procedures, they share their experience using social media.
    I share this information with you because it is important 
for you to know as we educate consumers about agriculture, they 
gain a better understanding of why it is important for tax 
dollars to be used for agriculture. When consumers see for 
themselves how we care for our animals, the land, the 
environment, and gain a better understanding of how agriculture 
bolsters the national economy, we see more support for U.S. 
agriculture in the Federal budget.
    My family believes that farm programs play an important 
role in underpinning the strength of the farm economy, which 
supports the overall U.S. economy. The importance of an 
effective safety net for farm income has grown with the rise in 
cost of farm inputs. We recognize that in the present budget 
environment, farm programs are a target of interest from either 
groups that oppose them in principle or who want to use those 
funds for other projects.
    Let me review five of the farm bill titles and my position:
    In the commodity title, we support risk management 
proposals and other programs that enable us to better manage 
risk, maintain planting flexibility, avoid restructuring of 
existing crop insurance programs, and are compliant with 
current U.S. WTO commitments.
    We use Federal crop insurance, marketing loans, futures and 
options, hedge-to-arrive contracts to protect our financial 
investment in times of extreme volatility of commodity prices 
and input costs.
    Let me also add that credit for new farmers is important to 
the future of agriculture. With the expenses we face, it would 
be very difficult for a new farmer to secure enough credit to 
take over an operation from an existing farmer.
    In conservation, we support practices on working land. We 
would like to reduce the acreage cap on CRP in order to achieve 
budget savings and allow U.S. producers to respond to growing 
demands.
    Conservation projects that protect the environment are 
extremely important to farmers. Our farm is 30 percent no-till, 
70 percent minimum-till.
    We have relied on cost share programs that reduce erosion 
through stream bank restoration, CRP waterways and dry dams. 
But there are not enough resources to do all the necessary 
work.
    In energy, we support reauthorization and funding for 
Biodiesel Fuel Education Program and Biobased Market Program 
and would like to see reauthorization of the Bioenergy Program 
for Advanced Fuel.
    In research, we would like to see the Agriculture & Food 
Research Initiative reauthorized and funding maintained for 
research at land-grant universities to help us better manage 
production challenges.
    For trade, we need reauthorization and funding for the 
Foreign Market Development Program and the Market Access 
Program and continue Food for Education and food aid programs.
    Again, let me emphasize that I strongly support these and 
other titles be part of the 2012 Farm Bill, including support 
for commodity programs, conservation, research, energy, export 
promotion and food assistance programs.
    I thank you very much.
    [The prepared statement of Ms. Moore follows:]

    Prepared Statement of Deborah L. Moore, Corn, Soybean, and Beef 
                        Producer, Roseville, IL
    Good morning. I would like to start by thanking Chairman Lucas, 
Congressman Peterson, Congressman Schilling, and other Members of the 
Committee for the opportunity to testify here today.
    My name is Deb Moore. I farm near Roseville in western Illinois 
with my husband, Ron, and his brother, Larry. We have about 2,000 acres 
of corn and soybeans and a feeder cattle operation with 200 acres of 
pasture. I am a member of the Illinois Soybean Association and the 
Illinois Farm Bureau. Ron and I are also members of the corn and beef 
associations.
    I want to thank you for the opportunity to be here today to talk 
about the value and importance of farm programs to modern U.S. 
agriculture operations like ours. For more than 30 years, we have been 
active family farmers who are concerned about both caring for the land 
and sharing the farm story with the public. I was actually born and 
raised in suburban Chicago and moved to the farm after marrying Ron, 
who is a third generation Warren County farmer. Both of his 
grandfathers farmed in Warren County. We like to tell our sons' friends 
that there are more steers per square mile than there are people in 
Section 5 of Roseville Township.
    Farmers like us face many challenges and opportunities in today's 
global marketplace. As we continue to become more efficient and grow 
food for the world on the same number of acres, we must be innovative 
and also manage more risk. As crop prices have increased over the last 
couple of years, so have expenses. We must find ways collectively to 
manage such challenges.
    Currently our only income is from the farm. With higher commodity 
prices has come a higher input cost. From 2010 to 2011, our income 
increased 50 percent, but our expenses increased 58 percent. Our major 
expenses each crop year include cash rent, followed by fertilizer, seed 
and crop protectants. Fertilizer expenses have more than doubled in the 
last 4 years, crop protectants costs are up 30 percent, cash rent, seed 
and fuel have doubled in cost over the last few years. I would also add 
that we have not increased our production acres during this time 
either, only the expense per acre of planting the crop. In the fall of 
2011, we purchased our seed, fertilizer and crop protectants for the 
2012 crop, a full year before that crop will be harvested. We pay for 
crop expenses a year ahead to guarantee supply and prices.
    We do what we can to manage the financial risk as much as possible, 
but every year is different. Weather, disease and prices play a major 
role in our profitability. High commodity prices are of absolutely no 
use to us if we lose a crop to extreme weather conditions. One storm 
can wipe out an entire crop and jeopardize a farm in a matter of 
minutes. We have had several wind storms that have taken down buildings 
and flattened our crops. In those situations, we had to run the combine 
in one direction with a reel to harvest most of our crop. We were 
luckier than many other farmers, we still had a crop to harvest but the 
expense increased greatly with added fuel and additional wear on the 
machinery.
    Another major challenge we face is in educating consumers about 
agriculture and the importance of our industry to food production and 
the economic well-being of our country. I taught school when we were 
first married and then stayed home to raise our three sons. I did go 
back to teaching for 8 years while the boys were in college to help pay 
their tuition. My teaching position was eliminated 2 years ago, but I 
still have a passion for teaching others about farming. I am involved 
with the Ag in the Classroom program and have hosted multiple school 
field trips, participated in classroom visits, and hosted urban 
teachers to our farm.
    I also have become involved with Illinois Farm Families, a group 
that focuses on a different way of communicating with consumers than in 
the past. Illinois Farm Families are actively seeking a dialogue with 
urban consumers about food and farming concerns.
    In this last year, Illinois Farm Families invited Chicago-area moms 
to see a variety of farms and get their questions answered. More than 
70 interested moms applied for the program and nine were chosen to 
spend the year touring Illinois farms. I am one of the farm mom 
hostesses spending time with these field moms while they tour our 
farms. Each tour allows the moms to dig into food and farming topics 
and make their own judgments about our methods and performance. After 
the tours, the moms share their experiences with others using social 
media.
    Last summer, my family was one of five Illinois farm families 
featured in an online program where consumers watched a video tour of 
our farm to learn about farming. We know more than 135,000 Illinois 
consumers viewed the farmer videos, many of whom we still communicate 
with through e-newsletters. In June, we will host the field moms for a 
closer look at our family farm.
    I share this information with you because it is important for you 
to know that as we educate consumers about agriculture, they gain a 
better understanding of why it is important for tax dollars to help 
support agriculture. When consumers see for themselves how we care for 
the land, our animals and the environment and gain a better 
understanding of how agriculture bolsters the national economy and 
feeds their own families as well as those around the world, we see more 
support for making sure U.S. agriculture is a wise investment in the 
Federal budget.
    My family believes that farm programs play an important role in 
underpinning the strength of the farm economy which supports the 
overall U.S. economy. The importance of an effective safety net for 
farm income has grown as the rising cost of farm inputs has 
increasingly pressured farm profitability. We recognize that, in the 
current budget environment, farm programs are a target for interests 
that either oppose them in principle or want to fund other priorities. 
I am willing to accept our fair share of budget costs, but in 
proportion with other programs that may be explored for budget cuts. 
Our family supports ways to make farm programs more efficient, 
effective and defensible.
    Let me review five of the farm bill titles and my position:

  <bullet> Commodity title. We support Risk Management proposals and 
        other programs that enable us to better manage risk, maintain 
        planting flexibility, avoid restructuring of the existing crop 
        insurance program, and are in compliance with current U.S. 
        World Trade Organization (WTO) commitments.

    We use Federal Crop Insurance (Revenue Assurance), hail insurance, 
        market loans, futures and options and Hedge-to-Arrive contracts 
        to protect our financial investment in times of extreme 
        volatility of commodity prices and input costs.

    Our farm usually takes loans out every year for corn and soybean 
        production to help with cash flow. We get our loans through our 
        local Farm Service Agency office and the Commodity Credit 
        Corporation.

    Let me also add that credit for new farmers is important to the 
        future of agriculture. With the expenses we face, it would be 
        very difficult for a new farmer to secure enough credit to take 
        over an operation from an established farmer. Farmers borrow 
        more money each year than most Americans will borrow in a 
        lifetime.

  <bullet> Conservation title. We support programs for conservation 
        practices on working lands. We would like to reduce the acreage 
        cap on the Conservation Reserve Program (CRP) in order to 
        achieve budget savings and allow U.S. producers to respond to 
        growing demand.

    Conservation projects are extremely important to farmers. We 
        emphasize conservation projects that protect the environment. 
        Our farm is 30 percent no-till and 70 percent minimum till. But 
        there are not enough resources to do all of the necessary work.

    We have relied on the cost share programs available through USDA 
        and the Illinois Department of Agriculture. We have done stream 
        bank restoration to reduce erosion on pasture land and have CRP 
        waterways to reduce field level erosion on 200 acres. We also 
        installed seven dry dams on 140 acres to reduce erosion and 
        improve productivity.

  <bullet> Energy title. We support reauthorization and funding for the 
        Biodiesel Fuel Education Program and Biobased Market Program 
        and would like to see reauthorization of the Bioenergy Program 
        for Advanced Biofuels.

  <bullet> Research title. We would like to see the Agriculture & Food 
        Research Initiative (AFRI) reauthorized for competitive 
        research grants and funding maintained for research at land-
        grant universities. I believe that we need to continue 
        investing in research with Illinois universities to advance 
        research that can help us better manage production challenges. 
        We need public funding and researcher support to maintain a 
        comprehensive researchprogram.

  <bullet> Trade title. We need reauthorization and funding for the 
        Foreign Market Development (FMD) Program at $34.5 million 
        annually and the Market Access Program (MAP) at $200 million 
        annually and continue Food for Education and food aid programs.

    Again, let me emphasize that I strongly support these and other 
titles be part of the 2012 Farm Bill, including support for commodity 
programs, conservation, research, energy, and export promotion and food 
assistance programs.
    That concludes my comments today. I look forward to working with 
you and other Members of the Committee as you write the next farm bill. 
I would be happy to answer any questions you may have. Thank you for 
your time.

    The Chairman. Thank you.
    Mr. Mages, whenever you are prepared, you may begin.

 STATEMENT OF JOHN MAGES, CORN AND SOYBEAN PRODUCER, BELGRADE, 
                               MN

    Mr. Mages. Mr. Chairman, Members of the Committee, I want 
to thank you for letting me testify today. Ranking Member 
Peterson is actually my Congressman in my district in 
Minnesota.
    My name is John Mages and my wife, Cindy, and I farm in 
central Minnesota near Belgrade. We farm 1,200 acres of corn 
and soybeans.
    If I had to sum up my views on the next farm bill, it would 
be as follows:
    Pass a 5 year farm bill this year.
    Give farmers a menu of policy options to choose from.
    Be sure that every one of those options has protection 
against long periods of low prices.
    Do not change the pay limit or AGI rules again.
    And above all, do not do anything to hurt crop insurance.
    We need a 5 year farm bill for the same reason we need 
long-term tax policy. We need to be able to go to the banker 
and be able to make plans for the future.
    Farmers need a choice, because it is obvious to almost 
everyone that you cannot squeeze the same crop into the same 
program and make it work for all crops. If the farm bill does 
not work for all crops, then I think the chances of it passing 
Congress and becoming law are low.
    This past week, I made the rounds on Capitol Hill with 
fellow farmers from seven states growing nearly every crop and 
I want each one of them to have a policy that works for them as 
well as one that works for myself. Whatever options farmers 
have to choose from, there needs to be a mechanism to deal with 
the long-term low prices.
    None of you wants to be in Washington writing emergency 
assistance legislation because the farm bill was not designed 
to handle a financial crisis.
    On pay limits and AGI, the new rules that just came out 
about 2 years ago, I know this sort of thing is cast off as 
being friendly for the family farmer, but these rules are now 
hitting the family farmer. More and more of those advocating 
these kind of rules seem like the real goal is to adjust the 
real farm policy. Now they want to put these rules on crop 
insurance. I doubt any home, business or car owner would want 
his identity means tested or his pay limited because of the 
measure of his loss.
    Finally, do not hurt crop insurance. I know this is the 
mantra these days, but we do need to make sure, for example, 
that revenue programs do not duplicate crop insurance, which 
would hurt us. But supplement it by helping to ease parts of 
the farmer's deductible which can get high in some parts of the 
country, especially if the producer's actual production history 
lags.
    Thank you again for inviting me and I will look forward to 
your questions.
    [The prepared statement of Mr. Mages follows:]

Prepared Statement of John Mages, Corn and Soybean Producer, Belgrade, 
                                   MN
    Chairman Lucas, Ranking Member Peterson, Members of the Committee, 
thank you for this opportunity to appear before the House Agriculture 
Committee to share our views on the 2012 Farm Bill.
    My name is John Mages and I am a corn and soybean farmer from near 
Belgrade, Minnesota in Stearns County. I am also President of the 
Minnesota Corn Growers Association.
    I believe that farm policy designed to support a strong and dynamic 
U.S. agriculture sector is vital. Federal Crop Insurance and the farm 
policies that have been in place for more than a decade have generally 
served this nation and producers well. I am proud to stand by a policy 
that has been under budget for the past 10 years, accounts for only 
about one quarter of one percent of the Federal budget, guarantees 
American consumers the lowest grocery bills, as a percentage of 
disposable income, of any consumer in the world, and constitutes the 
one bright spot in our economy and our nation's balance of trade.
    However, I understand that budget and other pressures may require 
that a new approach be taken in the 2012 Farm Bill and, as such, I 
would like to set out the policy priorities of Minnesota producers like 
me.
    First and foremost, please do no harm to Federal Crop Insurance, 
which should be preserved, protected, and strengthened. We strongly 
oppose any further legislative or administrative cuts to Federal Crop 
Insurance, and we oppose carrying conservation compliance or other 
rules applicable to the farm bill over to this critical risk management 
tool that we as producers help pay for. We also believe that 
improvements to Actual Production History (APH), continued availability 
of enterprise units, and the ability to stack supplemental area-wide 
coverage on top of individual coverage can all work to help erase at 
least a part of a producer's deductible.
    Second, the triggering mechanism under farm policy needs to be 
updated to provide tailored and reliable protection in the event of 
multiple-year low prices such as we experienced in the late 1990s and 
early 2000s. Price protection over multiple years is the main point of 
a farm bill because it is the one thing that Federal Crop Insurance is 
not designed to do. We need price protection under any option a 
producer might be given in the farm bill. If there is not price 
protection and prices collapse, we will see a repeat of what we saw in 
the mid 1980s and late 1990s which is a financial crisis followed by 
very costly and inefficient ad hoc disaster assistance.
    Third, it is apparent that farmers need options in the 2012 Farm 
Bill. It is clear, for example, that revenue programs may work for some 
producers, but not for others. Even among producers who like the idea 
of a revenue program, there is a split on whether it should be done on 
a national, state, crop reporting district, county, or on an on-farm 
level. Within Minnesota alone, there is probably a rough geographic 
line where producers may prefer area wide revenue on one side and on-
farm revenue on the other, while some Minnesota producers may prefer a 
price-based option instead. We think allowing producers to choose from 
options in order to best meet the risks they face on their farms is a 
good approach.
    Whatever options are made available in the 2012 Farm Bill, they 
should be plain and bankable, tailored to losses and, thus, defendable, 
and built to weather prolonged periods of low prices. Toward this end, 
we generally feel that the 2011 Farm Bill proposal that you developed 
last fall met these goals.
    Fourth, since the farm bill options under discussion would only 
kick in to cover actual loss situations, whether revenue or price 
losses, it seems that arbitrary payment limits and means tests for 
producers should be eliminated. It is one thing to limit or means test 
Direct Payments paid on historical bases and yields but it makes no 
sense to do this against revenue or price losses that a farmer sustains 
on his operation. Farm policy is intended to help U.S. producers 
compete against heavily subsidized and protected foreign competitors 
and arbitrary rules frustrate this goal rather than advance it.
    Fifth, we very much need a 5 year farm bill passed into law this 
year. The prospect of having to make plans, secure loans, and plant 
under a short term extension or no law at all is not a good one for 
producers.
    Thank you once again for the opportunity to offer testimony on the 
crafting of the 2012 Farm Bill.

    The Chairman. Absolutely, thank you.
    Mr. Gerard, begin whenever you are ready, sir.

   STATEMENT OF BLAKE GERARD, RICE, SOYBEAN, WHEAT, AND CORN 
                     PRODUCER, McCLURE, IL

    Mr. Gerard. Chairman Lucas, Members of the Committee, good 
morning and thank you for inviting me to testify today.
    The Chairman. Pull your microphone up just a little closer, 
sir. These things seem to be very directional.
    Mr. Gerard. My name is Blake Gerard and I am from Alexander 
County in Illinois, the southernmost county in the State of 
Illinois. I am a rice, soybean, corn and wheat producer. I 
appreciate the opportunity to come here today and give you my 
top five priorities for the 2012 Farm Bill.
    The first of which being I would like to see us pass a 5 
year farm bill this year. We farmers are businessmen and we 
depend on the stability and certainty of long-term farm policy.
    Second, we farmers need a choice of policy options. 
Producers of some crops face different risks than producers of 
other crops. In fact, sometimes producers of the same crop 
coming from different regions of the country face different 
risks. We have an opportunity right now to craft a farm bill 
that will address the risks on the farm. It is not so easy for 
me to go home and craft my risk to match farm policy. The 
proposal that was developed last fall would have worked for all 
producers, from my perspective.
    Third, each farm policy option that we present to producers 
needs to have price protection that will address periods of 
prolonged low prices. This is the very purpose of the 
origination of the farm bill, but what has happened since the 
2008 Farm Bill was enacted, the production costs have increased 
significantly to the point that they are not adequate to 
prevent a financial crisis in the agriculture industry if 
prices were to collapse, such as they did in the late 1990s. 
Target price and loan rates are much too low at this point to 
be relevant. The ACRE program has not worked, as evidenced by 
current participation rates. Direct payments, while they have 
been helpful, cannot respond to a collapse of prices. Along 
with that, crop insurance is not designed to work effectively 
in prolonged periods of low prices.
    Okay, fourth, the farm bill should not change payment 
limitations. We just made major changes in the last farm bill, 
which were not fully implemented up until 2 years ago, and I am 
competing in a global marketplace with competitors that benefit 
from rising subsidies and protectionist tariffs, while at the 
same time funding for my farm bill has decreased to record low 
levels.
    And fifth, I would like to see crop insurance strengthened 
to where it will work equitably for all commodities. 
Fortunately, I can say as a corn and soybean producer that crop 
insurance is working effectively for me. But for my rice 
enterprise, crop insurance has not been working effectively and 
I think we need to put all hands on deck to focus on improving 
crop insurance to where it can work effectively for all 
commodities.
    The bottom line for me is when I look at the farm policy 
options that are on the table today, from my rice enterprise, 
the revenue program totally does not work. My risks on my rice 
enterprise are price risks and production cost risks. I need a 
price-based safety net.
    Then when I analyze it and I step over to my corn and 
soybean production and I look at the options that are on the 
table, I am concerned about the current revenue programs that 
are in place, that are on the table today because there is 
still yet no price-based protection in these programs that are 
offered. In other words, if we get into a period, which I feel 
like we will with the cyclical nature of agriculture, of 
prolonged low prices, the revenue guarantee under the current 
revenue programs that are proposed will fall along with those 
low prices. At that point, we have no safety net. At that 
point, we will have people requesting ad hoc disaster 
legislation, which is not fiscally responsible, it is not fair 
to the American farmer or the American taxpayer.
    So summing it up, let me just say this; I feel like the 
proposal that was put together last fall by this Committee, 
with what you had to work with, the time frame you were working 
in and the funding level that you had to work with, you did a 
very effective job putting a proposal together that will work 
for all producers. And also it saved money, a significant sum 
of money, for the American taxpayers. You offered up a program 
that gave the producers a choice and both choices, the revenue 
program and the price-based program had a price protection 
built into it. I think we are on the right track and I think we 
need to stay on that track.
    I appreciate the opportunity to come here and express my 
beliefs today. Thank you very much.
    [The prepared statement of Mr. Gerard follows:]

  Prepared Statement of Blake Gerard, Rice, Soybean, Wheat, and Corn 
                         Producer, McClure, IL
Introduction
    Chairman Lucas, Ranking Member Peterson, and Members of the 
Committee, thank you for holding this hearing concerning farm policy 
and the 2012 Farm Bill. I appreciate the opportunity to offer testimony 
on farm policy from the perspective of a diversified grain producer.
    My name is Blake Gerard. I raise rice, soybeans, wheat, and corn in 
Alexander and Union counties in southern Illinois and I have been 
farming on my own now for 16 years. I am the fourth generation in my 
family to farm this land and this is my 13th year to farm rice in 
Illinois. I am also co-owner in a seed conditioning facility that does 
contract seed production, conditioning, packaging & warehousing. All of 
our soybeans are raised for seed along with about 75% of our rice. In 
addition to my farm and seed business, I also serve as the commissioner 
for the East Cape Girardeau/Clear Creek Levee & Drainage District, the 
Illinois Crop Improvement Association and am a member of the USA Rice 
Producers' Group Board of Directors.
Importance of Agriculture and Cost-Effective Farm Policy
    U.S. agriculture shares a certain amount of pride for what we do 
for the nation's economy. Agriculture still matters.
    Over the course of the current economic downturn, here is an 
excerpt of what objective sources ranging from the Federal Reserve to 
The Wall Street Journal had to say about what America's farmers and 
ranchers have been doing to help get our nation back on track and 
people back to work:

        ``In 2010, rural America was at the forefront of the economic 
        recovery . . . `[R]ising exports of farm commodities and 
        manufactured goods spurred job growth and income gains in rural 
        communities . . . If recent history holds true, rural America 
        could lead U.S. economic gains in 2011.' Federal Reserve of 
        Kansas City, 2010 report.''

        ``Growers' improved lot is rippling out to other industries.'' 
        The Wall Street Journal, October 12, 2010.

    We read the same kinds of reports during the last recession when 
the manufacturing sector was in crisis:

        ``Farm Belt Is Becoming a Driver for Overall Economy . . . The 
        present boom is proving that agriculture still matters in the 
        U.S. Rising farm incomes are helping to ease the blow of the 
        loss of manufacturing jobs in Midwest states . . . `The farm 
        sector is a significant source of strength for the U.S. 
        economy,' says Sung Won Sohn, chief economist of Wells Fargo 
        Bank . . . Although farmers themselves are a tiny part of the 
        population, they have an outsize impact on the economy because 
        farming is such an expensive enterprise. A full-time Midwest 
        grain farmer often owns millions of dollars of equipment and 
        land, and spends hundreds of thousands of dollars annually on 
        supplies.'' The Wall Street Journal, December 17, 2003.

    And, for those old enough to remember the 1980s, publications such 
as The Economist recalled the impact on the rest of the economy when 
agriculture was not doing well:

        ``The 1990s were so good [for Chicago] partly because the 1980s 
        had been so bad. `Everything that could possibly have gone 
        wrong did' says William Testa, the senior economist at the 
        Federal Reserve Bank of Chicago. The region was hit by a 
        crushing combination of high energy prices, a strong dollar, 
        high interest rates, and a farm recession.'' The Economist, May 
        12, 2001

    Last year alone, U.S. farmers and ranchers spent nearly $320 
billion in communities across the country to produce agriculture 
products valued at some $410 billion. Put in perspective, the value of 
total U.S. agriculture production was greater than the 2010 GDP of all 
but 25 nations, and total production cost was greater than all but 28. 
And, according to the Department of Agriculture, U.S. agriculture is 
expected to positively contribute $26.5 billion to the U.S. balance of 
trade in Fiscal Year 2012 after having contributed over $40 billion 
just the year before.
    And, one of the reasons we are here today, I expect, is because 
while U.S. agriculture is critically important to America, farm policy 
is also critically important to U.S. agriculture.
    Without farm policy, U.S. producers would be unilaterally exposed 
to global markets distorted by withering high foreign subsidies and 
tariffs, and have no comprehensive safety net. In fact, DTB & 
Associates issued a report last fall, similar to the study on tariffs 
and subsidies developed and maintained by Texas Tech University (http:/
/www.depts.ttu.edu/ceri/index.aspx.), which found that:

        ``U.S. subsidies . . . have dropped to very low levels in 
        recent years. In the meantime, there has been a major increase 
        in subsidization among advanced developing countries . . . 
        Since the countries involved are major producers and consumers 
        of agricultural products, the trade-distorting effects of the 
        subsidies are being felt globally. However, because the run-up 
        in subsidies is a recent development, and because countries 
        have not reported the new programs to the WTO or have failed in 
        their notifications to calculate properly the level of support, 
        the changes have attracted little attention. We believe that 
        when trade officials examine these developments, they will 
        discover clear violations of WTO commitments.''

    This aggressive increase in foreign subsides and tariffs might also 
explain why foreign competitors worked to derail WTO Doha Round 
negotiations, causing then Chairmen and Ranking Members of the Senate 
Finance Committee and House Ways & Means Committee to register their 
opposition to pursuing a lopsided agreement against the U.S. interests:

        ``Since the WTO Doha Round was launched in 2001, we have 
        supported the Administration's efforts to achieve a balanced 
        outcome that would provide meaningful new market access for 
        U.S. agricultural products . . . particularly from developed 
        and key emerging markets. Unfortunately, the negotiating texts 
        currently on the table would provide little if any new market 
        access for U.S. goods, and important developing countries are 
        demanding even further concessions from the United States.'' 
        Ways & Means Committee Chairman and Ranking Member Rangel and 
        McCrery and Finance Committee Chairman and Ranking Member 
        Baucus and Grassley.

    Moreover, while many successfully negotiated trade agreements have 
promised market access gains for agriculture, much of what was promised 
has yet to materialize or is continually threatened by artificial 
sanitary, phytosanitary (SPS) and other non-tariff barriers. This is 
why programs such as the Market Access Program and Foreign Market 
Development Program are of vital concern to the rice industry and must 
be reauthorized in the 2012 Farm Bill. It has not gone unnoticed that 
budget reductions currently being considered (such as the elimination 
of the Direct Payment) will result in a dollar for dollar loss in farm 
income. Producers must be provided the tools not only to attack these 
obstacles to trade but to increase exports through market promotion and 
thereby increase farm income through increased open and fair trade.
    But, beyond even these barriers that are imposed by foreign 
competitors are barriers to exports imposed in whole or in part by the 
U.S. Government. For example, rice was completely excluded from the 
free trade agreement negotiated with South Korea, foreclosing for the 
foreseeable future any new market access for U.S. rice producers in 
that country. Iraq, once a top export market for U.S. rice, has 
instituted restrictive specifications on rice imports that have led to 
a 77 percent drop in sales of U.S. rice to that country. In the pending 
Trans Pacific Partnership (TPP) negotiations, Japan has indicated an 
interest in joining. The U.S. rice industry supports Japan joining the 
negotiations, but only if additional market access for U.S. rice into 
Japan is part of the agreement. Our industry cannot support an 
agreement where market access for our product is categorically off the 
negotiating table. Another market that has the potential to become a 
top five export market almost immediately is Cuba. Unfortunately, the 
U.S. Government maintains restrictions on our agricultural exports to 
this country. Cuba was once the number one export market for U.S. rice 
prior to the embargo and we believe it is potentially a 400,000 to 
600,000 ton market if normal commercial agricultural exports are 
allowed to resume.
    In total, U.S. rice exports to date for the current marketing year 
are down 24 percent compared to last year.
    And, while the rice industry is still a long ways off from having a 
crop insurance product that is relevant to rice producers, the general 
need for Federal involvement in insuring crops where losses are highly 
correlated is also obvious, as even the American Enterprise Institute 
has admitted:

        ``The empirical evidence on the viability of either area-yield 
        or multiple-peril crop insurance seems clear. When normal 
        commercial loading factors are applied, the premiums required 
        by insurers to offer an actuarially viable private crop 
        insurance contract are sufficiently high to reduce the demand 
        for such contracts to zero . . . Thus, private markets for 
        multiple-peril crop insurance are almost surely infeasible, and 
        the weight of the empirical evidence indicates that area-yield 
        contracts are also not commercially viable . . .'' American 
        Enterprise Institute, ``The Economics of Crop Insurance and 
        Disaster Aid,'' 1995.

    Fortunately, for the American taxpayer, in addition to all of these 
justifications on why we have a farm policy in this country, we can add 
to the list at least one more reason: farm policy is cost-effective.
    In fact, U.S. farm policy has operated under budget for over a 
decade and accounts for only \1/4\ of 1 percent of the total Federal 
budget. Not including additional cuts scheduled under sequestration, 
U.S. farm policy has, to date, been cut by about $18 billion over the 
past 9 years, including in the 2004 and 2010 Standard Reinsurance 
Agreements (SRAs), the FY2006 reconciliation package, and the 2008 Farm 
Bill.
    In the most recent 5 years, average funding for U.S. farm policy, 
based on real funding levels, including crop insurance, was $12.9 
billion per year, which is 28% less than the previous 5 year average of 
$17.9 billion and 31% less than the average of $18.8 billion that 
incurred in the preceding 5 years. In the current year, the 
Congressional Budget Office (CBO) estimates that crop insurance policy 
will cost slightly more than the current commodity policies. And 
according to CBO projections for the next 10 years the estimated annual 
cost for commodity policy in the farm bill is $6.6 billion on average 
(before the expected reductions are made as part of this farm bill 
process), while the estimated annual cost for crop insurance policy is 
$8.8 billion on average. With the current suite of crop insurance 
policies not working effectively for rice producers, this puts our 
industry at a further disadvantage and highlights the need to maintain 
an effective commodity policy in the farm bill that will work for rice.
    Funding of that portion of farm policy that assists rice producers 
has declined from $1.2 billion a decade ago to about $400 million 
annually, with this amount largely reflecting Direct Payments.
    Meanwhile, U.S. consumers are paying less than 10% of disposable 
income on food, less than consumers in any other nation.
    This is why I believe so firmly that future cuts must focus on 
areas of the budget outside of farm policy that have not yet 
contributed to deficit reduction yet comprise a significant share of 
the Federal budget. This is also why I would urge lawmakers to reject 
cuts to U.S. farm policy that would exceed the level specified by the 
House and Senate Agriculture Committee Chairs and Ranking Members in 
their letter to the Joint Committee on Deficit Reduction last fall.
2008 Farm Bill Review
    The Food, Conservation, and Energy Act of 2008 (the Farm Bill) 
continued the traditional mix of policies consisting of the non-
recourse marketing loan, loan deficiency payments, and the direct and 
countercyclical payments. The farm bill also included the addition of 
Average Crop Revenue Election (ACRE) as an alternative to counter 
cyclical payments for producers who agree to a reduction in direct 
payments and marketing loan benefits. The bill also added Supplemental 
Revenue Assurance (SURE) as a standing disaster assistance supplement 
to Federal crop insurance.
    The 2008 Farm Bill made very substantial changes to the payment 
eligibility provisions, establishing an aggressive adjusted gross 
income (AGI) means test and, albeit unintended by Congress, resulting 
in the very significant tightening of ``actively engaged'' requirements 
for eligibility. USDA was still in the process of implementing many of 
the provisions of the 2008 Farm Bill in 2010, and the final payment 
eligibility rules were only announced in January of that same year, a 
mere 2 years ago. As a consequence, we are still adjusting to the many 
changes contained in the current farm bill, even as Congress considers 
the 2012 Farm Bill.
    Regarding ACRE and SURE, frankly, neither policy has proved much 
value to rice farmers. Specifically, in the first year of ACRE signup, 
only eight rice farms representing less than 900 acres were enrolled 
nationwide. With changes, this revenue program may provide more value 
for some rice growing regions like California. And SURE has provided 
little, if any, assistance to rice producers, including those producers 
in the Mid-South who suffered significant monetary losses in 2009 due 
to heavy rains and flooding occurring prior to and during harvest, or 
the significant losses last year as a result of spring flooding in the 
Mid-South. SURE's inability to provide disaster assistance for such 
catastrophic events further highlights the continuing gap in available 
programs designed to help producers manage or alleviate their risk.
    Regarding the traditional mix of farm policies, the nonrecourse 
marketing loan, loan deficiency payment, and countercyclical payments 
have not yet provided payments to rice farmers under the 2008 Farm 
Bill. The new price paradigm has, as a practical matter, greatly 
limited the protections afforded to producers under these farm policy 
features. In fact, if the protections provided were ever to trigger for 
rice farmers, the protections would help stem some of the economic 
losses but, frankly, not enough to keep most rice farms in business 
through even a single year of severely low market prices.
    As such, whatever its imperfections, the Direct Payment alone has 
assisted rice producers in meeting the ongoing and serious price and 
production perils of farming today.
    For rice producers, as for most other producers, the existing 
levels of price protection have simply not kept pace with the 
significant increases in production costs, costs such as energy and 
fertilizer that are exacerbated by escalating government regulations. 
It is for this reason that rice farmers believe strengthening farm 
policies in the 2012 Farm Bill would be helpful in ensuring that 
producers have the ability to adequately manage their risks and access 
needed credit.
Crop Insurance
    Risk management products offered under Federal Crop Insurance have 
been of very limited value to rice producers to date due to a number of 
factors, including artificially depressed actual production history 
(APH) guarantees, which I understand is also a problem for many other 
producers; high premium costs for a relatively small insurance 
guarantee; and the fact that the risks associated with rice production 
are unique from the risks of producing many other major crops.
    For example, since rice is a flood-irrigated crop, drought 
conditions rarely result in significant yield losses as growers simply 
pump additional irrigation water to maintain moisture levels to achieve 
relatively stable yields. However, drought conditions do result in very 
substantial production cost increases as a result of pumping additional 
water. As such, what rice farmers need from Federal crop insurance are 
products that will help protect against increased production and input 
costs, particularly for energy and energy-related inputs. For example, 
fuel, fertilizer, and other energy related inputs represent about 70 
percent of total variable costs.
    In this vein, many in the rice industry have been working for over 
the past 4 years now to develop a new generation of crop insurance 
products that might provide more meaningful risk management tools for 
rice producers in protecting against sharp, upward spikes in input 
costs. I serve on a rice industry task force that has been working to 
develop and improve crop insurance products for rice, and although the 
objective was to gain approval from the Risk Management Agency (RMA) of 
at least two new products that could be available to growers in time 
for the 2012 crop year, this has not materialized. But, it is important 
to stress that even if these products had become available this year, 
we do not believe that they would have put rice producers anywhere near 
on par with other crops in terms of the relevance that crop insurance 
has as a risk management tool.
    As such, rice producers enter the 2012 Farm Bill debate at a very 
serious disadvantage, having only a single farm policy that effectively 
works and that farm policy being singled out for elimination.
2012 Farm Bill
    With the foregoing as a backdrop, the U.S. rice industry developed 
a set of farm policy priorities in September of last year to guide us 
during consideration of the 2012 Farm Bill. The U.S. rice industry is 
unified in its firm belief that farm policy designed to support a 
strong and dynamic U.S. agriculture sector is absolutely vital. We also 
believe that the planting flexibility provided under the 1996 Farm Bill 
and the countercyclical policies that have been in place for more than 
a decade now have served this nation and its farmers well. In 
particular, as we noted earlier, the 1996 Farm Bill's Direct Payments 
have provided critical help to rice farmers--offering capital farmers 
could tailor to their unique needs. We are very proud to stand by this 
farm policy.
    However, given budget pressures and other considerations facing 
Congress that have caused policymakers to consider altering this 
approach in favor of more directed and conditioned assistance, we 
developed the following priorities:

  <bullet> First, we believe the triggering mechanism for assistance 
        should be updated to provide tailored and reliable help should 
        commodity prices decline below today's production costs, and 
        should include a floor or reference price to protect in multi-
        year low price scenarios.

  <bullet> Second, as payments would only be made in loss situations, 
        payment limits and means tests for producers should be 
        eliminated.

  <bullet> Third, Federal crop insurance should be improved to provide 
        more effective risk management for rice in all production 
        regions, beginning with the policy development process.

    More specifically relative to each of these points, we believe 
that:
Price Protection is a Must
    Given price volatility for rice is the primary risk producers face 
that they do not have other good means of protecting against, with 
price fluctuations largely driven by global supply and demand; given 
rice is one of the most protected and sensitive global commodities in 
trade negotiations, thus limiting access to a number of key markets; 
given costs of production have risen to a point where the current $6.50 
(loan rate)/$10.50 (target price) assistance triggers are largely 
irrelevant, we believe the first priority should be to concentrate on 
increasing the prices or revenue levels at which farm policy would 
trigger so that it is actually meaningful to producers, and would 
reliably trigger should prices decline sharply.
    The reference price for rice should be increased to $13.98/cwt 
($6.30/bu). This level would more closely reflect the significant 
increases in production costs for rice. And we believe this reference 
price should be a component of both the price-loss policy and the 
revenue-loss policy to ensure downside price protection.
Options for Different Production Regions
    In addition, there should be true options for producers that 
recognize that a one-size-fits-all approach to farm policy does not 
work effectively for all crops or even the same crop such as rice in 
different production regions.
    In the Mid-South and Gulf Coast production regions, a price-based 
loss policy is viewed as being most effective in meeting the risk 
management needs of producers. Specifically, this policy should include 
a price protection level that is more relevant to current cost of 
production; paid on planted acres or percentage of planted acres; paid 
on more current yields; and take into account the lack of effective 
crop insurance policies for rice.
    In the California production region, although the existing revenue-
based policy still does not provide effective risk management, efforts 
to analyze modifications which will increase its effectiveness 
continue. Since rice yields are highly correlated between the farm, 
county, crop reporting district, and state levels, we believe the 
revenue plan should be administered for rice at either the county or 
crop reporting district level to reflect this situation rather than 
lowering guarantee levels to use farm level yields. By setting loss 
triggers that reflect local marketing conditions, delivering support 
sooner, and strengthening revenue guarantees that account for higher 
production costs as well as the absence of effective crop insurance, 
California rice producers are hopeful that an effective revenue program 
can be developed.
    While I have focused on the need for a choice for rice producers in 
different regions, this also applies for producers of most other 
grains. I support having policy options available for corn, soybeans, 
and wheat, which I produce, and believe that both a price-based policy 
and a revenue-based policy should be offered as options for these 
crops.
    Whatever is done should be plain and bankable. The current SURE has 
too many factors and is not tailored to the multiple business risks 
producers face--it is not plain. The current ACRE, while offering 
improved revenue-based protection, is complicated by requiring two loss 
triggers; providing payments nearly 2 years after a loss; and provides 
no minimum price protection--it is not bankable. The marketing loan and 
target prices are plain and bankable--unfortunately the trigger prices 
are no longer relevant to current costs and prices.
    Whatever is done should be tailored and defendable. We believe it 
makes sense to provide assistance when factors beyond the producer's 
control create losses for producers. We generally think more tailored 
farm policies are more defendable. For this reason, we like the thought 
of updating bases and yields or applying farm policies to planted 
acres/current production and their triggering based on prices or 
revenue, depending on the option a producer chooses. However, policy 
choices should not result in severe regional distortions in commodity 
policy budget baselines from which reauthorized commodity policies must 
be developed.
    Whatever is done should be built to withstand a multi-year low 
price scenario. Whether in a revenue-based plan, or a price-based plan, 
reference prices should protect producer income in a relevant way in 
the event of a series of low price years. Ideally, this minimum could 
move upward over time should production costs also increase, this being 
of particular concern in the current regulatory environment.
    Whatever is done should not dictate or distort planting decisions. 
Direct payments are excellent in this regard. SURE or similar whole 
farm aggregations tend to discourage diversification, which could be a 
problem for crops like rice. Any commodity specific farm policy that is 
tied to planted acres must be designed with extreme care so as to not 
create payment scenarios that incentivize farmers to plant for a farm 
policy. Whatever is done should accommodate history and economics and 
allow for proportional reductions to the baseline among commodities. 
Some commodities are currently more reliant on countercyclical farm 
policies (ACRE/CCP) while others are receiving only Direct Payments in 
the baseline. Generally, the least disruptive and fairest way to 
achieve savings across commodities would be to apply a percentage 
reduction to each commodity baseline and restructure any new policy 
within the reduced baseline amounts.
    There have been concerns raised about higher reference prices 
distorting planting decisions and resulting in significant acreage 
shifts including for rice. We are unaware of any analysis that shows 
significant acreage shifts resulting from the reference price levels 
included in the 2011 Farm Bill package. In fact, for rice specifically, 
a reference price of $13.98/cwt that is paid on historic CCP payment 
yields and on 85% of planted acres results in a reference price level 
well below our average cost of production, so I find it hard to imagine 
why someone would plant simply due to this policy given these levels.
Pay Limits/Eligibility Tests Should Be Eliminated
    The likely outcome of new farm policy is that it will provide less 
certainty for the producer (a likely decrease or elimination of Direct 
Payments). Since it will likely be designed to provide assistance only 
in loss situations, the second priority is that the policy should not 
be limited based on arbitrary dollar limits. Assistance should be 
tailored to the size of loss. A producer should not be precluded from 
participating in a farm policy because of past income experience. Any 
internal limits on assistance should be percentage-based (i.e., 25% of 
an expected crop value) and not discriminate based on the size of farm.
Crop Insurance Should Be Maintained and Improved
    Although crop insurance does not currently work as well for rice as 
it does for other crops, the third priority would be to improve 
availability and effectiveness of crop insurance for rice as an 
available option. I would also support improvement to the product 
development processes (we have struggled with two 508(h) submissions 
for over 4 years and are still not completed with the process), and to 
the APH system such that any farmer's insurable yield (pre-deductible) 
would be reflective of what that farmer actually expects to produce. In 
no case should the crop insurance tools, which are purchased by the 
producer, be encumbered with environmental/conservation regulation or 
other conditions that fall outside the scope of insurance.
2011 Budget Control Act Efforts
    Although the details of the 2011 Farm Bill package that was 
prepared by the House and Senate Agriculture Committees in response to 
the Budget Control Act were not disclosed, based on discussions and 
reports we believe that that package at least represents a good 
framework on which to build the 2012 Farm Bill. The 2011 package 
included a choice of risk management tools that producers can tailor to 
the risks on their own farms, providing under each of those options 
more meaningful price protection that is actually relevant to today's 
production costs and prices. It also included provisions to improve 
crop insurance and expedite product development for under-served crops 
such as rice.
    We are concerned that effective support for rice producers under 
the price-based option was set well below cost of production that late 
changes to the revenue-based option minimized its potential as an 
effective risk management tool for rice producers, and that pay limits 
and AGI rules would still serve as an arbitrary constraint upon U.S. 
competitiveness, globally. Still, even with these areas for 
improvement, the U.S. rice industry very much appreciates the Members 
and staff who put enormous time and effort into what we believe 
represents a good blue print for ongoing farm bill deliberations and we 
thank you.
    Again, thank you for this opportunity to offer my testimony. We 
certainly look forward to working with you on an effective 2012 Farm 
Bill we can all be proud of.

    The Chairman. Thank you very much. And thank you in 
particular for the kind comments about the October-November 
discussion. Apparently not everybody in America quite agrees 
with that, but thank you.
    Mr. Adams, you can begin whenever you are ready, sir.

 STATEMENT OF CRAIG ADAMS, CORN, SOYBEAN, WHEAT, HAY, AND BEEF 
                     PRODUCER, LEESBURG, OH

    Mr. Adams. Chairman Lucas and Members of the Committee, 
thank you for holding this hearing on U.S. farm policy and the 
formulation of the farm bill.
    I am Craig Adams, and my family has been in production 
agriculture starting as sharecroppers for at least four 
generations in southern Ohio, and have grown our business to 
1,700 acres, of which 900 are owned. We have a diversified 
operation raising corn, soybeans, wheat, hay, pasture, 
commercial beef cows, and kids. My wife is an educator and we 
have three children still in school.
    Because of the 1980s farm crisis, poor yields, 18 percent 
interest and no functional crop insurance, I am the only 
Wilmington College agriculture graduate of 1979 still engaged 
in full time production. All of us who started farming in this 
time frame are survivors of or near bankruptcy. Without the 
1985 Farm Bill and a community bank that believed in young men 
with dreams, I would not be here today.
    With high commodity prices and an over-extended Federal 
budget, there is a push to eliminate or substantially reduce 
government support of agriculture. I believe everyone receiving 
Federal USDA dollars should share equally in reductions. During 
the late 1990s, there was a public outcry over Congressionally 
approved crop disaster payments.
    Crop insurance in its current form is the most effective 
answer to short crop years. Any producer who desires an 
effective risk management tool can purchase crop insurance. 
Agriculture will accept reductions in FSA programs for crop 
insurance to survive. Independent companies servicing 
independent agents who dispense advice to farmers using 30 to 
40 year historic yield databases to get true production 
patterns, not weather fluctuations, helping mitigate premium 
increases stemming from catastrophic loss. We need an insurance 
program that is affordable to all producers across the United 
States.
    Commodity markets are cyclical and our self-produced food 
is a national asset. If all risk is removed I fear some of the 
unintended consequences could be the loss of affordable 
insurance for U.S. farmers.
    Spring is the time of renewal, with baby animals entering 
the world and crops peaking through the warm soil seeking the 
sun's energy. Be like a farmer, Chairman Lucas, and nurture 
this farm bill to passage.
    Thank you.
    [The prepared statement of Mr. Adams follows:]

Prepared Statement of Craig Adams, Corn, Soybean, Wheat, Hay, and Beef 
                         Producer, Leesburg, OH
    Chairman Lucas, Congressman Peterson, and Members of the Committee 
thank you for holding this hearing on the future of U.S. farm policy 
and the formulation of the 2012 Farm Bill.
    I am Craig Adams, am my family has been in production agriculture 
starting as sharecroppers for at least four generations in southern 
Ohio and have grown our business to 1,700 acres of which 900 are owned. 
We have a diversified operation raising corn, soybeans, wheat, hay, 
pasture, commercial beef cows, and kids. My wife Kim is an educator 
with a master in curriculum supervision. We have two children in 
college and one in middle school.
    Because of the 1980's farm crises, poor yields, 18% interest, and 
no functional crop insurance, I am the only Wilmington College 
agriculture graduate of 1979 still engaged in full time production. All 
of us who started farming in this time frame are survivors of or near 
bankruptcy. Without the 1985 Farm Bill and a community bank that 
believed in young men with dreams, I would not be here today.
    With high commodity prices and an over extended Federal budget, 
there is a push to eliminate or substantially reduce government support 
of agriculture. I believe everyone receiving Federal USDA dollars 
should share equally in reductions. During the late 1990's there was 
public outcry over Congressionally approved crop disaster payments. 
Crop insurance in its current form is the most effective answer to 
short crop years. Any producer who desires an effective risk management 
tool can purchase crop insurance. Agriculture will accept reductions in 
FSA programs for crop insurance to survive. Independent company's 
servicing independent agents whom dispense advice to farmers using 30-
40 year historic yield databases to get true production patterns, not 
weather fluctuations, helping mitigate premium increases stemming from 
catastrophic loss. We need an insurance program that's affordable to 
all crop producers across the U.S. Commodity markets are cyclical and 
our self-produced food is a national asset. If all risk is removed via 
shallow loss I fear the unintended consequence could be the loss of 
affordable insurance.
    Spring is the time of renewal, with baby animals entering the world 
and crops peaking through the warm soil seeking the sun's energy. Be 
like a farmer Chairman Lucas and nurture our farm bill to passage.
            Thank you,

Craig Adams.

    The Chairman. Thank you, Mr. Adams.
    I now recognize myself for 5 minutes and I would start by 
observing, Mr. Erickson, I promise you in the House of 
Representatives all spending is going down this year. And that 
is part of the challenge we face on this Committee, whether we 
have $23 billion less or $33 billion less or $40+ billion less 
to spend when we put that next 5 year farm bill together, that 
is one of the challenges that we face.
    I have a question though, being an old wheat and cattle guy 
from western Oklahoma, that I have to ask the panel. And my 
colleagues are always tired of this after awhile. But tell me 
in a snapshot, what are land prices doing in your core areas, 
the last 2, 3, 4 years? Up, down, sideways, stable?
    Mr. Erickson. Dramatically higher and not all driven by 
agricultural prices, but in fact you have to look at the larger 
picture of the economy and lack of investment opportunities for 
those people who have been conservative in their approach to 
their personal finances invested into their future and now have 
the opportunity to invest into something larger at a rate of 
return that is better than they can find at the local bank.
    So I think it is driven perhaps more by the opportunity to 
invest and some current tax laws than it is by its ability to 
pay for itself as farmland, that is for sure.
    The Chairman. I see the exact same thing at home, 10 years 
ago, 5 years ago, it was to have a place to go hide on the 
weekends or a place to hunt. Now it is a safe place to put your 
money.
    Ms. Moore, your area.
    Ms. Moore. A few months ago there was some land that sold 
in the Roseville area and it was $12,000 an acre and a farmer 
bought it. No, that does not cash flow but----
    The Chairman. No.
    Ms. Moore.--as Mr. Erickson said, it is an investment. At 
$12,000 an acre, that is a big investment.
    The Chairman. Exactly.
    Mr. Mages.
    Mr. Mages. Mr. Chairman, in our area in Minnesota, I am in 
central Minnesota and there has been land sales in the $5,000 
to $6,000 range, which seems like a bargain compared to 
Illinois evidently. But some land in Minnesota is a few 
thousand dollars higher, but it is driven by the farmer 
basically. You know, years ago, it was a 1031 exchange that 
drove the land sales and today it is the farmer and for the 
reasons like Mr. Erickson said also. They look at it as a place 
to put their money because the return in the bank or whatever 
is a lot lower.
    Thank you.
    Mr. Gerard. And in southern Illinois, we are seeing the 
exact same thing, rapid escalation in land prices from both the 
investor and from the farmer. Not too many years ago, we were 
buying land for $2,000 to $3,000 an acre in our area and 2 
weeks ago, we had one 10 miles up the road that sold for $7,700 
an acre, which is phenomenal for Alexander County, Illinois. So 
same story.
    The Chairman. Mr. Adams.
    Mr. Adams. Mr. Chairman, I must be living in a depressed 
part of the world. I jokingly say we can look out our back door 
and see Appalachia and we can look north about four counties 
and see the Corn Belt. Our prices have generally increased in 
southern Ohio. Two weeks ago, I had a friend purchased a farm 
for $3,400 an acre, about 95 percent tillable, had not been 
farmed for several years. It is in that mid to low $3,000 to 
$3,700-$3,800 an acre in southern Ohio. Now you go two counties 
to north central Ohio and you are talking $5,000 to $7,000 an 
acre for crop ground.
    The Chairman. You have to remember, being an Okie, I live 
between my friends in Texas and my friends in Kansas, so I 
see--we will not flatter them at this moment here.
    [Laughter.]
    Mr. Boswell. Mr. Chairman, will you yield a moment?
    The Chairman. I would yield to Mr. Boswell for a moment.
    Mr. Boswell. What do you suppose you and I would do, you 
have your ranch down there, if we were cow/calf operators, some 
crops, if somebody wanted to come to your place or mine and 
offer us $10,000 or $12,000, we would probably say come on in, 
let us talk.
    The Chairman. Then my wife would take me aside and explain 
to me why I could not do that, Leonard; yes, exactly. But yes, 
absolutely.
    Another question. One of the topics of great discussion as 
we work on options in the next farm bill, as we try to craft 
this concept of insurance, both revenue and traditional 
weather, yield issues, and we take into consideration all the 
other factors that drive farm policy. You are a very diverse 
group of farmers obviously.
    Tell me, when you make your decisions about what to plant, 
how much of it is soil and past growing history, how much of it 
is what the insurance rates are, how much of it is what kind of 
demand the Renewable Fuel Standard creates? Tell me about how 
you make your decisions in your diverse operations, about what 
to produce. And as Chairman, that light is yellow, but you can 
go a little longer with me. Whoever is brave, step up.
    Mr. Mages. Mr. Chairman, the way we do it, I guess 
basically we are corn and soybeans and it is economics. We 
plant about \2/3\ corn and \1/3\ soybeans and we do that on a 
rotational basis. It seems to work out pretty well, so that is 
one of the reasons. And the corn, we seem to make a little more 
money on corn and the risk is a little bit less on corn for 
some reason, weather risk in our area. Soybeans tend to have 
issues with high alkaline soils and things like that. So that 
is what makes our decision.
    Mr. Erickson. We have a corn and soybean rotation and we 
look at our business from a holistic approach. Not only does 
the rotation provide for we think better opportunities for 
revenue generation, but we also think it allows us to manage 
risks, both from weather, diseases, other pests that might 
attack the crop. So we tend to look at a long-range approach 
there and have the opportunity with long-term landlord 
relationships to keep those in place. So we make our decisions 
based on what works best for our operation and the signals in 
the marketplace tells us.
    Mr. Adams. Mr. Chairman, we raise basically a 50/50 ratio 
of corn and soybeans. Back in 2008 when corn prices took off 
upward, we messed up our rotation and when the end of the year 
was over, soybean acres had been purchased up similar to what 
they are doing right now, should have stayed with what we are. 
Wheat is not competitive in that kind of a rotation. We do some 
different things because of the cow/calf operation, things like 
that for forage. But the wheat is basically a conservation tool 
and it also allows us to rebuild waterways, terraces and things 
like that.
    Mr. Gerard. Mr. Chairman, where I farm, we have variable 
soil types, so I guess the primary, the first consideration is 
soil type. We have some soils that are solely suited for rice 
where we cannot really rotate, it is continuous rice 
production. We have other soils where we can rotate rice and 
soybeans. And then on the third soil type, we can rotate corn, 
wheat, soybeans. We have much more flexibility. So on those 
acres that we do have flexibility, the first thing I look at is 
what is going to reap me the best net income and the market 
will dictate what we plant on those acres. Fortunately we have 
that flexibility.
    One thing that really is irrelevant to my consideration is 
the safety net that is provided based on the target price or 
loan rates because what was proposed last fall is support to 
help keep us in business, but still yet, it is below cost of 
production. So there is no influence from the safety net or 
target price proposed, has really no bearing on what I am going 
to plant. Crop insurance the same.
    The Chairman. So basically what you are telling me is what 
I have always known and what I have tried to explain to my 
colleagues back east; and that is, a typical farmer has to be 
an outstanding agricultural economist and calculate all these 
things every time to survive, and also a pretty darn good soil 
scientist based on his or her property and property history.
    Thank you very much. I now recognize my friend from Iowa 
for 5 minutes, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman, I appreciate the 
dialogue you just had, that was helpful.
    There is quite a lot of concern, as the Chairman mentioned, 
about the adjustments we will have to make, and I want you to 
understand and appreciate that his and our colleagues' worked, 
we tried to have that super committee action before the last 
holiday and it did not happen. But I think you need to know 
that of all the committees that were asked to bring their 
resolve to that super committee, the one that succeeded was the 
Agriculture Committee. So back to that whole comment about 
bipartisanship, we feel good about that.
    We talked for some time about how we will step up and take 
a hard look at what we can--set our priorities. We know we will 
have to make an adjustment. We would like to do it, you would 
like to do it rather than having somebody sitting at a desk in 
some far away place deciding for you. So I am very appreciative 
and complimentary that we came up with that $23 billion. That 
is a lot.
    But then I think it is fair, we have to talk about some of 
this. Now the rest of you step up to the plate and do your part 
before you come back to us. There is a lot of discussion, lot 
of concern. I am an old soldier, I spent a career in the 
military and I am lucky to be here, very lucky. And I am big on 
defense, but when we have a Secretary of Defense stand up and 
say we might need to make some adjustments here. And I am on 
the Eisenhower Commission which is setting up the memorial, I 
was asked to do that some years ago and it is not an easy thing 
to do. You might see something on the news on it.
    But I made a comment some years ago about the military 
industrial complex and what it might do to us and I think we 
are faced with some of that. You are going to hear a lot of 
debate on this and I just want you to know a little bit of 
background. Chairman Lucas and Ranking Member Peterson, and Ms. 
Stabenow and Pat Roberts over in the Senate side stepped up to 
the plate and so we have to deal with that. So you will hear a 
lot about it and things will be discussed on that probably, if 
you just stop and think about it, it will probably end up going 
to a conference committee and be worked out there. So I just 
want to say this to you so you know that this debate is going 
to take place and it will probably be fairly lively.
    Having said that, if you want to comment, fine, but I am a 
big advocate for alternative fuels and have been for a long, 
long time. I was still in uniform years ago on a NATO 
assignment when we had the 7 day war and the big fuel crisis 
and I was in a foreign country. Amazed me what people just like 
us will do if you cannot get fuel for your car, your delivery 
truck or your tractor. It is amazing. So I have really been 
engaged in alternative fuels--all the above. And I have really 
been enthused about what we can grow out of the ground and turn 
into fuel and turn around and grow it again next year and so 
on.
    Seeing what we have done in production yields and so on in 
our lifetime, I guess I am the oldest one on the panel up here. 
I am not waving that flag, but I remember when I came back from 
the Army, I had been gone for 20+ years, came back and I was so 
anxious to get into row crops and I was getting ready to plant 
and my father came out and he dug around down the row and he 
said, ``How much are you planting, what kind of seed count?'' 
And I do not remember what it was. He said, ``You cannot do 
that, you cannot do that.'' And I told him why I thought I 
could and so on. So we watched it very close and I did not want 
to spend a lot of time on it, then he came back and crawled up 
on the combine when the harvest was going on and of course it 
was coming out pretty full and he said, ``How much is this 
yielding?'' We did not have the fancy gadgets we have now but I 
said, ``It is probably about 125 to 135 bushels to the acre, 
probably.'' I said, ``Why don't you just go into the elevator, 
it is all going across the scales, just go in there, we just 
finished that 80 over there, and check it.'' So he was gone 
quite a bit and he come back and he said, ``It is making 
that.'' He just shook his head.
    But look what we can do now. Look what some of you have 
done. So I do not know this question about, can the livestock 
sector exist with us doing a successful domestic ethanol 
industry, for example? I would like to hear your comments on 
that, just briefly, anybody and everybody. Can we do this?
    Mr. Erickson. I think so.
    Mr. Boswell. And I will tell you what I think when we get 
to the end. Go ahead.
    Mr. Erickson. Thank you. I think that we can and we have 
demonstrated that we have been able to thus far. Our ability to 
increase yields without sacrificing soil loss or nutrient 
mismanagement, I will call it. We also have to recognize the 
key role that alternative fuel production plays in providing 
feedstocks for livestock. We must have a strong livestock 
industry here at home. Not only does it provide excellent food 
for our own people, but we are able to add value by processing 
those things locally.
    But I think the alternative fuels market has also provided 
us the opportunity to provide feedstocks at a lower cost. 
Today's DDG provide a big percentage of rations for hog 
operations, swine diets and have significantly reduced the cost 
of just corn base. When you are looking at $6+ corn, the DDG 
provides a very economical alternative to the diet for swine. 
So I think we have been able to accomplish both.
    Mr. Mages. Congressman, I think it is a very workable 
system. You know, in the past 10 years, the demand for ethanol 
has increased dramatically, ten percent of the nation's fuel 
basically is ethanol now. And with that 14 billion gallons of 
ethanol being produced, it comes from approximately 5 billion 
bushels of corn, but we are raising a tremendously larger 
amount of corn than we did in the past and on the same amount 
of land. And we are also doing it with using less fertilizer 
and we are doing it in a fashion that is very friendly, 
environmentally friendly to the land.
    So I think the future of ethanol looks bright. I think with 
the livestock sector they are still a big customer, one of the 
biggest customers and through the DDGs and through the 
livestock, the value-added livestock, but also we get the 
nutrients from the livestock to put back on the land. And it is 
a tremendous circle of economic success.
    Mr. Boswell. In respect to the rest of the Members, I am 
going to stop here, maybe we can come back to it later, but 
that little red light means I have used up my time for this 
round.
    But I think we can too and I appreciate it. Just nod your 
head, do you think we can do it? Or shake your head this way--
okay, we think we can do it.
    I want the rest of you to know, media and so on, we feel 
like we can do this. We can continue to take steps to get out 
of bondage to OPEC and so on. So anyway, so much for that. I 
just wanted to see what you thought about it.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    I now recognize the gentleman from Texas, who I would note 
for the record has even fewer trees than I have in my district 
in Oklahoma, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. It is good to be 
here. We measure our rain in hundredths of inches and we are 
proud to get \5/100\ of an inch from time to time. Thank you 
all for being here this morning.
    I chair the Subcommittee on General Farm Commodities and 
Risk Management and while things that are going on at the CFTC 
are not directly related to what we are going to do these 
coming months in this farm bill, Ms. Moore, you mentioned that 
you bought your inputs last year for the 2012 crop.
    Can you walk me through basically how you did that and the 
rest of you, have you seen yet impacts of the CFTC's rulemaking 
on your ability to do that at a price that makes sense for you?
    Ms. Moore. Even before we finish our harvest, our seed 
salesmen are at our door trying to get our order for next year 
because seed is at such a premium for certain seed numbers, 
that if we can use those seed numbers, we really have to book 
them. We have the option of paying for them, but of course, it 
is at a reduced rate if we pay for it earlier than if we pay 
for it later next fall.
    Mr. Conaway. Okay, so you are not using futures contracts, 
you are actually buying them directly from the----
    Ms. Moore. We buy our seed.
    Fertilizer costs, most of the time they are predicting they 
are going up so we will book and pay for our fertilizer.
    Mr. Conaway. And how do you do that?
    Ms. Moore. Through our local co-op.
    Mr. Conaway. Okay, so you are relying on the co-op to be 
able to provide those services to you?
    Ms. Moore. Yes.
    Mr. Conaway. Have they talked to you about increased 
prices? Do any of the rest of you use futures markets to hedge?
    Mr. Mages. Yes, I do, Congressman.
    Mr. Conaway. Are you seeing anything yet from the impact of 
the rulemaking on the CFTC?
    Mr. Mages. I am not familiar with that.
    Mr. Conaway. Okay.
    Department of Labor has recently stepped into your business 
with respect to, I will not call them children, but young 
people working on farms. Where should those decisions be made 
about how do you regulate, how do you take responsibility for 
children working on farms?
    And maybe help us understand how old were you when you 
first started meaningfully working on your properties.
    Mr. Erickson. I am not sure how meaningful it was, but I am 
a graduate of a half day kindergarten and I know after a half 
day kindergarten, I used to sit on the tractor and I thought I 
was driving, but I think it was a way to keep me occupied while 
my dad fed hay to the cows.
    I think that the problem with some of these--and I alluded 
to it in my written testimony--the problem with some of these 
regulations is they appear before they are thought through. And 
if given the opportunity for people who have an understanding, 
beginning in Congress like the gentlemen before us today, if 
this Committee had had an opportunity to comment on some of 
those regulations before they had been introduced, I am sure 
that you would have been able to shed light to those regulatory 
agencies to say, hey, I think you need more information here.
    It is important to keep young people safe in working on the 
farm, but it is also important that we grow that work ethic in 
our young people and employer after employer will tell you the 
importance of that work ethic in young people today. And I 
think that is what makes us such a good workforce in the 
Midwest.
    Mr. Conaway. Ms. Moore.
    Ms. Moore. I think the responsibility should be with the 
parents. My husband told me when he was 8, he started raking 
hay and doing that. And when our oldest son was 8, I looked at 
him and said, ``Do you really think Steve is ready?'' And he 
agreed that no, maybe at that time he was not ready. But our 
boys all worked on the farm just building fence or raking hay 
or doing whatever needed to be done, when it was age 
appropriate, and that was our decision. And I can tell you that 
when they went out to college or went looking for jobs and 
people found out that they grew up on a farm, their eyes kind 
of light up, like oh somebody who knows how to work. That has 
been a real plus. They come back and say, ``Mom, they like that 
I grew up on a farm. You know, they think that I have learned 
how to work.'' And I think that we instill that in our children 
and I think that is really important.
    Mr. Conaway. Yes, the struggle is going to be obviously you 
making a decision for your children to work on your farm.
    Ms. Moore. Right.
    Mr. Conaway. The restrictions should be different than 
someone who lives near and they are going to be using children 
who are not theirs, but still age appropriate. How do you put 
in place the protections that are appropriate but also allow 
the flexibility to children whose parents do not actually own 
the land or are actually farming, to be that labor in the 
summer time that they need to learn that work ethic.
    Ms. Moore. Well, I think the parents of the children should 
have that.
    Mr. Conaway. Sure.
    Ms. Moore. So if they said yes, I think my child is mature 
enough and responsible enough to do that job on the farm, that 
they should have the ability to say yes.
    Mr. Conaway. My experience was not on the farm but it was 
on a drilling rig. And I had the same experience, while I 
worked on a drilling rig as a roughneck, I did not really think 
with either one of my boys that was a good idea. So I mean, it 
was my decision, my call to make there.
    Mr. Chairman, I yield back.
    The Chairman. I would simply note, like many people in this 
room, I started at a young age with my father and grandfather. 
And when I got to work for the neighbor as a teenager, that was 
wonderful, I got paid.
    [Laughter.]
    The Chairman. Wonderful.
    I turn to the gentleman from Illinois for his 5 minutes.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you all for 
being here. This has already been very informative.
    I just want to briefly say, before I get started, it is 
such a privilege to be serving on the Agriculture Committee, 
thank you, Mr. Chairman. It has been such a great learning 
experience for me. My district is just east, it starts a little 
bit north of here in Henry County and then goes east all the 
way over to DuPage County. But great to be here today.
    I also know, Congressman Schilling and I, it has been a 
wonderful little over a year that we have been serving out in 
Washington, D.C., but we also really appreciate the opportunity 
to work with our Senators here from Illinois. Specifically, I 
just want to recognize a couple of guys who are here from 
Senator Kirk's office, who just do a great job on ag policy--
Rob Johnson and also Randy Pollard, along with Senator Kirk's 
ag advisory group is here as well. We got to meet with them for 
a few minutes before. So we all know Senator Kirk is doing 
great and we want him back in Washington quickly, and he is 
still passionate about serving people here in Illinois. So glad 
you guys are here. But again, thank you all for being here.
    A couple of quick questions and a lot of stuff has already 
been covered, but I wanted just to talk with Mr. Erickson 
briefly about exports. I was very excited with, as Congressman 
Schilling said, the passage of the free trade agreements. I 
wondered if you could talk more specifically how you would see 
that impacting your family farm.
    Mr. Erickson. We have the advantage in this part of 
Illinois that we have a strong domestic demand for commodities 
and we also have the ability to export via river 
transportation. I will not even go into all that because that 
is a whole other topic.
    But exports have clearly been a driving force. When I first 
started farming in 1985, I think we had the feeling generally 
that we could control production, and therefore, control price. 
In the meantime, our competitors decided that if they are not 
going to do it, we will. And I think that we have finally come 
around to the fact, quite some time ago, that competing in the 
global marketplace is what we are all about and we obviously 
need to work here at home first. Exports clearly provide a lot 
of opportunities, not only for the producers, but the 
developers of products, the value-added, the transportation 
industry, the construction industry, and the list goes on and 
on that supports those export markets.
    Mr. Hultgren. Thanks. I agree with you as well. Along with 
serving on the Agriculture Committee, I also serve on the 
Transportation Committee and so I am really helping try to get 
a farm bill passed and also a surface transportation bill 
passed. I see how important our canals are, our rivers are, our 
roads are, our rails are. All of these are interconnected 
clearly and impact other industries, such as agriculture. So we 
need to make sure that we get some things done on the farm bill 
but also on the transportation bill.
    Ms. Moore, I wondered if I could ask you briefly, you 
talked in your testimony about the difficulty of securing 
credit especially for new farmers. I wonder, how hard is it to 
get started, for a new farmer to get started these days in this 
economy? And do you have any suggestions that would help 
prospective farmers or things that we should keep in mind as we 
work on the 2012 Farm Bill?
    Ms. Moore. Well, with the changes in the banking industry, 
for a new farmer to go in without much collateral, it is almost 
impossible for them to get the kind of money that we are 
talking about.
    Several years ago, it might have been a little easier, but 
as costs have gone up, they need to borrow more and more to get 
started. If there is a program that would support a young 
farmer and back them and give them some security at hopefully a 
lower interest rate too. But it is mostly getting the 
collateral backing for that loan that really could be a 
stumbling block for a lot of producers to get started.
    Mr. Hultgren. Mr. Gerard, in your testimony you said ``If 
all risk is removed via shallow loss, I fear that the 
unintended consequences could be the loss of affordable 
insurance.''
    I wonder if you could elaborate on that possible unintended 
consequences and why you believe a shallow loss program would 
not be beneficial.
    Mr. Adams. Congressman, I am sorry, but I think that was my 
testimony.
    Mr. Hultgren. Was that yours? I am sorry.
    Mr. Adams. My intent was on the shallow loss, I misstated, 
shallow loss or other changes in the insurance program that 
would increase cost to the farmer. The concern is that if you 
have an indemnity payment every year, then your premiums are 
going to go up. That was the concern.
    Mr. Hultgren. Okay.
    Mr. Adams. It is with the loss ratio. You know, do no harm, 
it is working right now, is the concept; yes.
    Mr. Hultgren. Okay, thank you.
    Real quickly if I could sneak one in. It just turned red.
    Let me get back to Mr. Erickson real quickly. You talked 
about the importance of direct payments. We have also heard so 
much about the importance--maybe a greater importance--of crop 
insurance right now. Obviously, many would like to have both.
    I wonder if quickly, if you could say is there a way that 
you could do without direct payments if crop insurance was 
strengthened?
    Mr. Erickson. I think my testimony led us to discuss the 
fact that direct payments, while under attack for a number or 
reasons currently, I think they were a good investment and I 
think my feeling has always been that you have to have personal 
responsibility for your own business and the things that you 
are responsible for. And I think the direct payments put the 
onus on the producer and the landowner to make sure that those 
payments were properly used and that those payments went to 
things that I outlined, which included risk management.
    In our operation, we do not utilize Federal crop insurance. 
And the reason that we do not is that we have had the 
opportunity to become financially stable. We have used those 
direct payments as a way to do marketing programs that have 
reduced price risk and the premium and reward from the Federal 
crop insurance has not worked for us. That is not to say that 
it is not a good program and it does have a place in risk 
management. I was just hopefully shedding light on the fact 
that there is opportunity for flexibility for all of the 
program.
    Mr. Hultgren. That is helpful. My time has expired. Thank 
you, Mr. Chairman, I yield back.
    The Chairman. The gentleman's time has expired. We now turn 
to Mr. Schilling for his 5 minutes.
    Mr. Schilling. Thank you, Chairman.
    Mr. Erickson, it is interesting, you brought up a little 
bit about regulation and before I got going, I had a meeting 
with Senator Kirk's ag advisory board and I was telling them 
the story of how we had a meeting with Ms. Jackson, and it was 
kind of interesting because what happened was we were talking 
about the masks that they were trying to force the farmers to 
wear and one of my colleagues had asked, do you know how much 
they cost. And she says well, no, I do not. Are they $50, are 
they $500, are they $5,000. And anyway, as this thing went on 
and on, it was both Democrats and Republicans alike that were 
kind of going after her and I was sitting there thinking--I was 
kind of feeling sorry for her and then I remembered that she 
was with the EPA.
    [Laughter.]
    Mr. Schilling. But one of the things that is really 
critical is that we all want clean air, clean water. And any 
time you come in and you try to get some of this over-
regulation under control, you get attacked. And I think it is 
imperative when they are trying to regulate farm dust and 
things like that, we have really got to keep a good eye and 
keep this under control because those all end up being more 
inputs and cost to people that do not necessarily need to be 
there.
    But what I wanted to start out, Mr. Erickson, do you 
think--I want to talk about crop insurance because that is the 
number one thing I continually hear as I go throughout the 
district. But do you think more parity in crop insurance 
premiums in Illinois would make you more likely to purchase 
crop insurance?
    Mr. Erickson. Crop insurance is all about risk/reward, just 
like any insurance is. I would give full review to what the 
opportunities provided for our business and how it could 
potentially lay off risk, and what the potential reward was 
down the line. And I think that is the importance of keeping 
the flexibility in crop insurance in the mixture, that it is a 
sound program that does not become overly subsidized or overly 
regulated. If you try to fix it too much, you might actually 
hurt the parts that work the best for the majority of people.
    So I am not being critical of the program, but I just think 
that it could be dangerous if we try to make too many changes 
there to fix everyone's problem, and in effect you have a 
costly program that maybe does not suit all at any cost.
    Mr. Schilling. An unintended consequence basically.
    Mr. Erickson. Yes.
    Mr. Schilling. I have heard quite a bit about the re-rating 
issue from producers in the district who believe that the MRAs 
approach is just the beginning in addressing a long-standing 
rate issue here in Illinois. And basically would encourage the 
process to continue.
    Five minutes goes so fast. I want to try to get to Ms. 
Moore here.
    You mentioned too much emphasis on any single approach, 
which is great. So I am going to flip over to Ms. Moore.
    In your testimony on risk management, you mentioned that 
you utilize the revenue assurance to protect against loss, 
which is basically what we talked about here, which I think is 
great. But one of the things that I think that you are doing a 
really awesome job on and I just want you to kind of touch on, 
and I applaud your work here in Illinois with the Farm Families 
and your educational efforts on farm policy because I think 
that is something that is critical, that we can get outside of 
our farm communities and educate people.
    Can you just highlight some of your most successful 
practices for us, Ms. Moore, on educating folks about the farm 
bill?
    Ms. Moore. Well, probably the latest is Illinois Farm 
Families where we have sat down with mostly moms, we think that 
moms are the most influential, and sat down with them and 
answered their questions. And this month, we did a tour to a 
hog facility with them and while we are on the bus, we talk. So 
those are our times. And one of the questions was, ``Tell me 
about farm subsidies.'' Well, that is all they hear, that is 
all they have in their mind about the farm bill, they did not 
understand all the titles that are involved. So I had the 
opportunity to explain to them everything that was encompassed 
in the farm bill and they said, ``Oh, so it is more than just 
paying some money to farmers.'' So we did get that dialogue and 
they did understand how much of it is including the nutrition 
programs and the SNAP program and got them to see.
    But every time I talk to consumers and they hear farm bill, 
oh, you mean subsidies. And that is all that they are hearing. 
So we need to do our part to let them know there is a lot more 
to this farm bill than just subsidies.
    Mr. Schilling. Very good. You know, I appreciate that 
answer because part of our job on this Committee is to make 
really the strongest arguments for rural America I believe, and 
just the importance of the farm bill to our colleagues. We have 
a lot of colleagues who do not truly understand what is going 
on with ag.
    I can see I am running out of time, but I really appreciate 
everyone being here. Thank you. I yield back, sir.
    The Chairman. Thank you, Mr. Schilling.
    One last observation or one question. Mr. Boswell and I 
have been discussing a point up here and I would recognize him 
to make a quick inquiry of the panel on this policy point.
    Mr. Boswell. Thank you, Mr. Chairman.
    Something we are hearing some talk about as we talk about 
the Federal crop insurance and so on, is conservation 
compliance. A lot of talk across the country and a lot across 
my state, a lot of people think we are all flat, but you know, 
we have a lot of highly erodible ground and so on. I would like 
to hear your response, there is not too much land and it has to 
have some conservation practice put on it. So should this be 
something we should be considering as we talk about Federal 
crop insurance? Should the producers be required to be in 
compliance?
    The Chairman. Should it be a mandatory requirement, that's 
the question back east. No not participating in the program if 
you are not vested in the conservation programs--not voluntary. 
There is a big difference there. Whoever, anybody.
    Mr. Mages. Mr. Chairman, I think conservation compliance 
does not belong in crop insurance. I think crop insurance is 
something that we pay for part of it and, say you had a problem 
one year and you have a big crop insurance payment coming in, 
and for some reason they do a compliance check in the back 40 
and you did something wrong years ago and you are out of 
compliance. And now the banker is waiting for his money or you 
are waiting to pay the bills and now they are going to refuse 
to pay. So for all of them reasons, I think compliance should 
not be an issue with crop insurance.
    Mr. Erickson. I almost hate to say this. I would differ in 
the fact that I think regardless of how we feel about them as 
producers, subsidy or incentive that we are provided 
financially from the government may entitle us to fall within 
the framework of certain programs. In our scenario, we have 
done conservation programs without government funding, but that 
is not the case for everyone. If we want to provide subsidy in 
any regard, in my estimation, it may come at a cost. And I do 
think we have a responsibility to farm responsibly. I think the 
vast majority of farmers do. But I also can understand the need 
for programs to be designed so that there is a certain amount 
of accountability for those who want to participate.
    That is a pretty wide area I guess.
    Mr. Boswell. I think you both made valid remarks. And 
perhaps if we go into this and I am quite confident we are 
going to hear about it. And by the way, for whatever it is 
worth to you, the land I have stewardship over, I complied 
before we had all this set aside business and I did not--I had 
already done it. That is beside the point.
    I think some of our folks--we are back to we all have an 
investment in agriculture, whether you are in the city or 
wherever--are going to bring this up, so we might need some 
expertise, Mr. Chairman, if we get to that point on how to 
qualify or design it where it would----
    The Chairman. Very valid point, Mr. Boswell, and this 
question takes us to the very core issue of what a farm bill 
is. When in a time that 75 percent of all farm bill spending in 
the last 5 years go to the social nutrition programs, some in 
my district refer to them as the feeding programs, perhaps when 
all the bills are added up for this year and last year, 80 
percent of all farm bill spending will be the feeding programs. 
Is it still a farm bill when we become that small a portion. 
And by the same token, is the farm bill, part of the farm bill 
intended to help us meet the food and fiber needs of this 
country and the world, or is it a tool with which to compel us 
to follow other people's guidelines about how we should live on 
our land.
    Those are all big philosophical discussions that will be 
sorted out on the floor or in the Committee and certainly on 
the floor of the United States House.
    You look like, Mr. Adams, you have some insights to lay on 
us. You will get to finish this.
    Mr. Adams. Well, Mr. Chairman, in response to Mr. Boswell, 
as a producer I would be willing to have linkage between crop 
insurance and conservation if recipients of food feeding 
programs would submit themselves to drug tests and things of 
that nature to be able to qualify.
    [Applause.]
    The Chairman. On that thought----
    [Laughter.]
    The Chairman.--the time for this panel has expired and we 
thank you for your insights.
    And we now call our second panel of witnesses to the table.
    [Brief pause.]
    The Chairman. The hearing will return to order and I would 
like to thank all of not only our participants in the hearing 
today but the folks who are with us today and who may be 
observing this process, and remind you once again everyone can 
visit, and anyone can visit, the House Agriculture Committee 
website to learn more about the 2012 Farm Bill process. 
Additionally, anyone is welcome to submit comments to be 
considered as a part of the Committee farm bill field hearing 
record. Your comments must be submitted using the website 
address by May 20, 2012, so it can be incorporated in the 
permanent record. That address is agriculture.house.gov/
farmbill. 
    With that, I would like to welcome our second panel of 
witnesses to the table. Mr. John Williams, sorghum, corn, 
wheat, and soybean producer from McLeansboro, Illinois; Mr. 
Gary Asay, pork, corn, and soybean producer, Osco, Illinois; 
Mr. Terry Davis, corn and soybean producer, Roseville, 
Illinois; Mr. David W. Howell, corn, soybean, pumpkin--pumpkin? 
This is going to be a good diverse topic--pumpkin, and tomato 
producer, Middletown, Indiana. By the way, my grandfather was 
born in Miami County, Indiana 113 years ago. And Ms. Jane 
Weber, specialty crop producer, Bettendorf, Iowa.
    And as Chairman, you can offer comments as you go along, it 
is one of the privileges that are left.
    Mr. Williams, please begin when you are ready.

 STATEMENT OF JOHN WILLIAMS, SORGHUM, CORN, WHEAT, AND SOYBEAN 
                   PRODUCER, McLEANSBORO, IL

    Mr. Williams. Good morning. I would like to thank you for 
giving me the opportunity to sit here before you today to 
discuss the impact of the next farm bill, and what it will have 
on our operation.
    I farm at home with my mom, dad, my son, and my daughter in 
Hamilton and White Counties near McLeansboro, Illinois, where 
we grow grain sorghum, corn, wheat, and soybeans. Grain sorghum 
is an integral component in our rotation and is a crop I use as 
a foundation for defense. I am blessed geographically to be 
able to sell our grain sorghum at a premium of 30 to 70 over 
corn each year. It is less expensive to plant and is more 
resilient to varying weather conditions, whether they be wet or 
dry. It is a dependable crop and has been a staple on our farm 
now for four generations.
    As a farmer, I realize the vast impact this one piece of 
legislation has on our day-to-day operations, and I want to 
ensure farmers benefit from the next farm bill. So I applaud 
you for holding this hearing today, and thank you.
    On our farm, I plan defensively and understand the upside 
and downside of risk. I have seen what can happen to friends 
and neighbors when they do not plant for risk, which 
underscores the need for meaningful risk management tools that 
farmers can utilize. With that said, I firmly believe that the 
number one goal for the next farm bill should be ``do no harm'' 
to Federal crop insurance.
    I believe a personal T-yield system, which would allow a 
farmer's APH to more accurately reflect his yield potential, 
would be a more productive way to improve the APH.
    I would also encourage RMA to include sorghum in the trend-
adjusted yield pilot program. It is inequitable to allow 
competing crops to have trend-adjusted yields while sorghum 
farmers' APHs are left unadjusted.
    Crop insurance is a safety net in a time of disaster. It is 
also an integral part of our overall marketing strategy. 
Because of revenue protection insurance, I can market 
aggressively and still be protected against market shifts. I 
remember having a glut of grain in the 1980s and I do not want 
to be caught in a position like that again where it affects our 
bottom line.
    In the 1980s with high interest rates and low grain prices, 
our crop was worth less than it cost to produce it. While 
interest rates are not the problem today, the cost of basic 
farm inputs has skyrocketed over the last 2 years. That is why 
it is critical to have some protection in the next farm bill 
against a steep drop in commodity prices, since input prices 
are sticky and slow to follow declining commodity prices.
    Whether that protection is a reference price system or a 
revenue-based system, it is important that it be in the new 
farm bill safety net and farmers have the option to choose what 
fits their operation and risk appetite the best. In a revenue-
based program, it is critical to have a reference price and 
plug yields. The reference price will protect against a long-
term, large commodity price drop and plug yields will help in 
times of consecutive years of yield losses.
    As for ACRE and SURE, these programs are not widely used in 
our area because they are too complex. I would have rather gone 
with a guaranteed route that direct payments provided. But 
given the situation, any new program that results from the next 
farm bill should be simple and transparent.
    With that said, sorghum is an agronomically important crop 
to our farm and likewise to those in the Sorghum Belt. However, 
it is not always the primary crop for many farmers and is 
extraordinarily sensitive to any incentives that are created in 
the farm program. No matter which form of policy is pursued, I 
believe special care must be taken to encourage crop diversity 
and to avoid a monoculture system that rejects agronomics in 
favor of farm policy incentives.
    And finally, I support the continuation of a farm bill 
energy title. As I mentioned earlier in my testimony, I sell my 
grain sorghum at a premium by rail. The market is limited to my 
area but stands to improve by generating competition through 
the biofuels industry which already has created a positive 
economic impact in the High Plains area. This Bioenergy Program 
for Advanced Biofuels from Section 9005 of the 2008 Farm Bill 
should be continued as it incentivizes eligible biofuel 
producers to use non-conventional feedstocks such as sorghum.
    Thank you again and I welcome your questions.
    [The prepared statement of Mr. Williams follows:]

Prepared Statement of John Williams, Sorghum, Corn, Wheat, and Soybean 
                       Producer, McLeansboro, IL
Introduction
    I would like to thank the House Committee on Agriculture for the 
opportunity to submit testimony on the next U.S. farm bill and its 
impact on my operation. I am honored to be here and be asked to present 
my views.
    My name is John Williams. I farm with my father and son near 
McLeansboro, Illinois, in Hamilton and White Counties where we raise 
grain sorghum, corn, wheat and soybeans. Grain sorghum is a crop I use 
as a foundation for defense. It is less expensive to plant and much 
more adaptable to varying weather conditions. Grain sorghum has proven 
itself as an integral component in my rotation, providing a resilient, 
dependable crop each year on my third-generation family farm.
    My partners and I appreciate the work put forth by this Committee 
in developing the next farm bill and look forward to working with the 
Committee to craft this set of vital farm policy. Because it is an 
integral part of my operation, my testimony will focus on multiple 
areas of farm policy as they relate to sorghum's safety net.
Protect Federal Crop Insurance
    On my operation, I plan defensively and understand the upside and 
downside of risk. I have seen what can happen to friends and neighbors 
when they do not plan for risk, underscoring the need for meaningful 
risk management tools that producers can utilize. Therefore, my first 
priority is to ``do no harm'' to Federal Crop Insurance, and I feel the 
program should be built upon in the following ways:

  <bullet> The APH methodology should be reformed and county T-yield 
        system improved so as to reduce the impact of local weather 
        phenomena and allow the producer's insurable yield (pre-
        deductible) to reflect what the producer and his lender would 
        actually reasonably expect to produce in that year. I believe a 
        personal T-yield system, which would allow a producer's APH to 
        more accurately reflect his yield potential, would be a 
        productive way to improve APH.

  <bullet> I would also support improvement to the product development 
        processes so that there would be a clear pathway to bring new 
        policies, like one for sweet sorghum or high biomass energy 
        sorghum, to market.

  <bullet> In no case should the crop insurance tools, which are 
        purchased by the producer, be weighed down with environmental 
        regulation or other conditions that fall out of the scope of 
        insurance.

  <bullet> I would encourage RMA to include sorghum in the trend 
        adjusted yield pilot program. It is inequitable to allow 
        competing crops to have trend adjusted yields while sorghum 
        producers' APHs are left unadjusted.
2012 Farm Bill
    Crop insurance is a safety net in a time of disaster but it also is 
an integral part of my overall marketing strategy. Because of revenue 
protection insurance, I can market aggressively and still be protected 
against market shifts. I remember having a glut of grain in the 1980s 
and I don't want to be caught in a position like that again where it 
affects my bottom line.
    In the 1980s, with high interest rates and low grain prices, my 
crop was worth less than it cost to produce it. While interest rates 
are not the problem today, the cost of basic inputs has skyrocketed 
over the last 2 years. That is why it is critical to have some 
protection in the next farm bill against a steep drop in commodity 
prices; I know input prices are sticky and slow to follow declining 
commodity prices.
    Whether that protection is a reference price system or a revenue 
based system, it is important that it be in the farm bill safety net 
and producers have the option to choose what fits their operation and 
risk appetite the best. In a revenue based program, it is critical to 
have a reference price and plug yields. The reference price will 
protect against a large commodity price drop and plug yields will help 
in times of consecutive years of yield loss.
    With that said, sorghum is an agronomically important crop to my 
farm and likewise to those in the Sorghum Belt. However, it's not 
always the primary crop for many producers, and is extraordinarily 
sensitive to any incentives that are created in the farm program. No 
matter which form of policy is pursued, special care must be taken to 
encourage crop diversity and rotation on the farm and avoid a 
monoculture system which rejects agronomics in favor of farm policy 
incentives. Based on both experience and a producer's understanding of 
the program, I suggest the following:

  <bullet> A farm bill should not dictate or distort planting 
        decisions. Direct payments are excellent in this regard. SURE 
        or similar whole farm aggregations tend to discourage 
        diversification, which could be problematic for sorghum. Any 
        commodity specific program that is tied to planted acres must 
        be designed with extreme care to avoid creating payment 
        scenarios that incentivize farmers to plant crops with higher 
        inherent value to maximize payments rather than making the 
        wisest possible agronomic decisions.

  <bullet> A program should be simple and bankable. The recently 
        expired SURE program had too many factors and was not tailored 
        to the multiple business risks producers face--it was not 
        simple. The current ACRE, while offering improved price-based 
        protection, is based on the state's income, not the farm's--it 
        is not bankable, especially in some of the large states where 
        sorghum thrives. The current loan and counter cyclical programs 
        are simple and bankable--unfortunately the 2008 price levels 
        are no longer relevant given current production costs. It is 
        important to me to have a simple, bankable program to take to 
        my lender, should disaster strike my crop.

  <bullet> A farm bill should be targeted and defensible. It makes 
        sense to provide assistance when factors beyond the producers' 
        control create losses.

  <bullet> A farm bill should be built to withstand a multi-year low 
        price scenario. Whether in a revenue loss plan, or a price-
        based countercyclical plan, it will be important to have a set 
        minimum price that serves as a floor or reference price to 
        protect producer income in a relevant way in the event of a 
        series of low price years. Ideally, this minimum could move 
        upward over time should production costs also increase.

  <bullet> A farm bill should allow for transitional and fair 
        reductions to the baseline for all crops. Generally, the least 
        disruptive and most fair way to achieve savings across 
        commodities would be to apply a percentage reduction to each 
        commodity baseline and structure any new program within the 
        reduced baseline amounts.

    The sorghum industry has seen firsthand the impact farm policy can 
have on planting decisions made by producers.
    Specifically evaluating certain revenue proposals, it seems that 
without yield plugs, in a situation with 2 consecutive years of loss, 
the protection quickly drops to a point where the program would have 
little value and would provide almost no protection for my farm. This 
component is necessary to ensure equity among crops because sorghum is 
grown in region with such high yield variability.
    Additionally, a revenue policy in conjunction with the potential 
use of adjusted yields for certain commodities could eliminate the 
important element of risk involved in growing a crop. This would create 
a situation that would greatly distort planting intentions because a 
farmer may be inclined to plant for the largest revenue guarantee as 
opposed to the most prudent agronomic choice.
    Finally, direct payments, while not necessarily tied to a specific 
crop being planted, have proven to be a WTO compliant, efficient 
payment for producers. It is one of the few parts of the current safety 
net bankers have certainty with and will provide financing for our 
producers. However, if the Committee decides to move away from this 
program, it makes it that much more important that successor policies 
be bankable.
Eliminate Dated Pay Limits
    Given the likely possibility that a new farm program would have 
less certainty for the producer (a likely decrease or elimination of 
direct payments) and will therefore be designed to provide assistance 
only in loss situations, the program should not be limited based on 
arbitrary dollar limits, i.e., assistance should be tailored to the 
size of loss. A producer should not be precluded from participating in 
a farm program because of past income experience. Any internal program 
limits on assistance should be percentage-based (i.e., 25 percent of an 
expected crop value) and not discriminate based on the size of farm.
Build Incentives for Sorghum Production into Conservation and Energy 
        Titles
    Sorghum is a highly water efficient crop that works well in various 
rotation systems, spanning from southern Texas to South Dakota. It 
thrives in drought prone areas because, whereas other crops will die 
during a period of prolonged water stress, sorghum will become dormant 
and thrive again upon taking in moisture. And while I rarely experience 
prolonged drought myself, this ability to make a crop under highly 
water deficient conditions allows sorghum to fit easily into farms 
where water is becoming scarcer each year.
    As such, it would be beneficial to strengthen the principles of 
water conservation language in the Ag Water Enhancement Program (AWEP) 
of the 2008 Farm Bill to more specifically encourage planting sorghum 
and other water saving crops. Currently, the program allows incentives 
for switching to lower water intensity crops, but a vast majority of 
payments are going to other projects. There is also place for water 
conservation language in existing Conservation Security Program (CSP) 
and Environmental Quality Incentive Program (EQIP) language, and water 
conservation options should be strengthened wherever practical. Using 
farm bill conservation programs as a transitional support, farmers will 
be able to economically justify switching higher value crops to lower 
water intensity crops over time.
    Additionally, grain, sweet and high biomass forage sorghums are all 
used to produce ethanol under economically viable biofuels 
technologies. I support the continuation of a farm bill energy title 
and specifically encourage continuing the Bioenergy Program for 
Advanced Biofuels from Section 9005 of the 2008 Farm Bill. Section 9005 
allows incentive payments to eligible biofuels producers that use non-
conventional feedstocks, such as sorghum. It has had positive economic 
impact on the Sorghum Belt and served as a water savings incentive 
where aquifers are already depleted.

    The Chairman. Thank you.
    Mr. Asay, you may proceed whenever you are ready.

STATEMENT OF GARY ASAY, PORK, CORN, AND SOYBEAN PRODUCER, OSCO, 
                               IL

    Mr. Asay. Good morning, Chairman Lucas and Members of the 
Agriculture Committee. I am Gary Asay, a farmer from Osco, 
Illinois. Along with my wife, I farm 300 acres of corn and 
soybeans and raise about 9,000 hogs a year. I am licensed to 
sell crop insurance and Livestock Gross Margin insurance.
    Like all pork producers, in the next farm bill, I would 
like to see provisions that help me maintain and strengthen my 
competitiveness. I do not want unwarranted and costly 
provisions that will make it harder for me to compete.
    The U.S. pork industry would like Congress to address 
several issues in the next farm bill, including feed 
availability, comprehensive disease surveillance, new foreign 
market access, risk management, and government intervention 
into the markets. I want to focus my testimony on the latter 
two.
    The U.S. pork industry has seen rapid growth in exports 
over the past decade. It is now exporting more than 25 percent 
of production. Because of that growth and an increased 
likelihood of a foreign animal disease outbreak in the U.S., 
the potential for a catastrophic drop in hog prices is greater 
than ever. Such a drop would adversely affect the U.S. economy 
which garners $35 billion in GDP annually and 550,000 jobs for 
the U.S. pork industry. Producers need better risk management 
tools to protect their operations. USDA has such a tool, a 
program similar to the one for crop farmers called Livestock 
Gross Margin insurance. But it reaches far too few pork 
producers and covers too few hogs.
    Congress and the USDA need to make funding and program 
changes so the program provides inexpensive catastrophic 
insurance coverage. Congress should remove the program's $20 
million cap, $16 million of which is now used for the dairy 
industry and $3 million is used for hogs. Also, USDA should 
lift the 30,000 head limit on the amount of hogs that can be 
insured. These limits are out of step with today's pork 
industry. Last year, only 206,000 hogs were covered. With the 
U.S. pork industry marketing more than 100 million hogs in a 
year, it is clear that the current LGM program affords very 
limited protection to U.S. pork producers. Congress should 
strongly urge USDA to work with pork producers to develop a 
catastrophic insurance product that is more in keeping with 
today's pork industry needs.
    Another issue I would like to raise is government's 
intervention in the buying, selling, and raising animals and 
how that would adversely affect pork producers' 
competitiveness. Mandates, whether pushed by lawmakers or 
activists, must not stand in the way of market-based demands. I 
know some lawmakers continue to discuss banning packer 
ownership of livestock, eliminating forward contracts and 
limiting the number of hogs covered by a contract. I do not 
believe pork producers would be well-served by having Congress 
dictate or eliminate certain types of contracting mechanisms. 
Doing so would force the livestock industry to revert to an 
inefficient system used more than a half century ago.
    Today's U.S. pork industry has a wide variety of marketing 
and pricing methods, including contracts to meet the 
challenging needs of a diverse marketplace. Economics should 
determine the structure of the pork production and processing. 
No economic research has ever shown that structure or marketing 
practices of the industry has harmed producers or consumers. 
Until such research exists, Congress should not impose 
limitations on packer ownership of production, producer 
ownership of packing or marketing contracts.
    Likewise, Federal mandates on production practices, 
including ones that dictate animal housing, would add to 
producers' costs and weaken the competitiveness. That is why 
pork producers oppose Egg Products Inspection Act Amendments, 
House Resolution 3798, which would dictate the size of cages 
for laying hens. The bill would amend the Federal food safety 
law. If imposed on imports, food safety laws must meet the 
World Trade Organization's equivalency principle, which 
requires countries to recognize each other's science-based 
measures as acceptable, even if they are different, as long as 
an equivalent level of protection is provided.
    But the supporters of H.R. 3798 admit that the standards in 
the bill are arbitrary, they are not based on science that 
protects and improves food safety and public health. If imposed 
on imported eggs, they would not meet the World Trade 
Organization's equivalence principle.
    For Congress to intervene in production practices for any 
livestock species with arbitrary standards devoid of scientific 
justification is extremely dangerous precedent for domestic and 
international commerce. The bottom line on the farm bill, 
Congress should craft legislation to help farmers like me 
remain competitive and should avoid provisions that make us 
less competitive.
    [The prepared statement of Mr. Asay follows:]

  Prepared Statement of Gary Asay, Pork, Corn, and Soybean Producer, 
                                Osco, IL
Introduction
    Gary Asay is a farmer from Osco, Ill. Along with his wife, he runs 
Asay Farms, which consists of 300 acres split between corn and 
soybeans. He also raises about 9,000 hogs a year for Cargill and is 
licensed to sell crop insurance and Livestock Gross Margin insurance.
    He serves on the board of directors of the National Pork Producers 
Council, which is an association of 43 state pork producer 
organizations and is the voice in Washington for the nation's 67,000 
pork producers.
    Like all pork producers, in the next farm bill Asay would like to 
see provisions that help him maintain and strengthen his 
competitiveness vis-a-vis foreign competitors; he does not want in the 
bill unwarranted and costly provisions and regulations that will make 
it harder for him to compete in the global marketplace.
The Next Farm Bill
    There are several issues pork producers believes Congress should 
address in the next farm bill that could help the U.S. pork industry 
and farmers like him.

    1. Enhancing programs that keep feed grain prices competitive with 
        the rest of the world would be very beneficial. Feed comprises 
        60-70 percent of my input cost of producing a market hog. (Each 
        market pig consumes approximately 10.5 bushels of corn and 200 
        pounds of soybean meal--that's about 4 bushels of soybeans.) 
        But the rapid development of the corn-based ethanol industry, 
        together with other factors, is threatening the U.S. pork 
        industry's competitiveness and the survivability of producers 
        like me. The markets have rationalized demand for corn over 
        time, but the potential for short-term dramatic price swings, 
        as well as localized feed shortages, has jeopardized the 
        industry's competitiveness and reliability as a domestic food 
        supplier and as an exporter.

    Following passage of the Energy Independence and Security Act 
        (EISA) of 2007, which included a Renewable Fuels Standard 
        (RFS2) that quickly accelerated the mandated production of corn 
        ethanol, pork producers struggled to adjust to rapidly 
        escalating prices and increased volatility in grain markets. 
        This resulted in a reduction in hog production. Congress 
        allowed the long-standing tax subsidies for corn ethanol to 
        expire at the end of last year. But the ethanol industry 
        continues to seek further government support for expanding 
        ethanol markets, calling for the blend rate to be increased 
        from 10 to 15 percent ethanol in motor vehicle fuels, subsidies 
        to finance construction of ethanol pipelines and other 
        infrastructure and adjustments to the RFS2 that would allow 
        corn ethanol to qualify as an advanced biofuel and expand its 
        production mandate.

    The debate over Federal renewable fuels policy has been playing out 
        over continually increasing pressure on domestic and worldwide 
        grain reserves. The 2011 crop, affected by weather conditions 
        in various parts of the Corn Belt, including the loss of 
        significant acreage because of flooding, delayed planting 
        because of wet conditions, drought and excessively hot summer 
        temperatures, came in below initial expectations, with corn 
        reserves at times during the year reaching record lows. That 
        caused tremendous volatility in grain markets, prompted 
        speculative buying and increased the risk of localized corn 
        shortages. Projections for the 2012 crop year show little 
        improvement in total corn reserve carry over, enhancing the 
        financial risk faced by pork producers, who must compete 
        against subsidized users of corn for increasingly difficult to 
        obtain supplies of corn.

    Pork producers have asked Congress and the Obama Administration to 
        consider a variety of responses, including reactivating the 
        Inter-departmental Livestock Task Force to help identify 
        policies to avert a feed-related crisis in the livestock 
        industry, reforming the Conservation Reserve Program to put 
        more land in production and to allow the penalty-free early 
        release of the least environmentally sensitive acres in the 
        event of a feed crisis and making available to producers all 
        USDA and Federal emergency programs and loan guarantees to help 
        them purchase feed should they encounter regional grain 
        shortages. Additionally, the U.S. pork producers support H.R. 
        3097, the Renewable Fuel Standard Flexibility Act, which 
        creates a safety valve that makes short-term adjustments to the 
        RFS in the event of a grain crisis to ensure adequate supplies 
        of feed is available for producers.

    Research and development also are needed to find other energy 
        alternatives, such as using animal manure and fat and biomass, 
        including switchgrass and corn stover. Pork producers want to 
        emphasis the right balance is needed to meet the needs of fuel 
        and feed security.

    2. Developing a world-class disease surveillance system is vital to 
        the continued viability of the U.S. pork industry. The outbreak 
        of H1N1 in 2009 demonstrated the interrelationship of human and 
        animal health when combating new and emerging diseases. From 
        that experience, the U.S. pork industry learned that a more 
        Comprehensive and Integrated Surveillance System (CISS) is 
        needed to ensure the capture of data about a broader range of 
        diseases. The industry began working collaboratively with 
        USDA's Animal and Plant Health Inspection Service (APHIS) and 
        the Centers for Disease Control and Prevention (CDC) to develop 
        a CISS. CDC supports the CISS, and APHIS's Veterinary Services 
        (VS) program has embraced this concept and included 
        comprehensive surveillance as a major objective in its 
        strategic plan, VS-2015. Completion of CISS is critical to 
        maintaining the pork industry's disease-free status, which is 
        critical to maintaining and expanding our exports.

    Disease surveillance is the foundation of disease prevention and 
        preparedness. The threat of new and emerging diseases continues 
        to grow, with scientists continually warning the public and 
        animal health authorities about prevention and preparedness. 
        One of the more grim aspects of these warnings is that many of 
        these diseases are zoonotic and are originating in wildlife and 
        domestic animals. The CISS is designed to provide an ``early 
        warning system'' and to allow for development of response plans 
        in advance of an epidemic. The U.S. pork industry currently is 
        collaborating with APHIS on a pilot project to test 
        implementation of a CISS and to determine how it can be 
        connected to an animal traceability system. Currently, the most 
        significant shortcoming is funds to build the infrastructure to 
        accommodate a more robust system of surveillance. In 2009, the 
        emergency supplemental appropriation, which made funds 
        available to CDC for managing the H1N1 crisis, also provided 
        $25 million to APHIS/VS for swine influenza surveillance. Of 
        that amount, approximately $17 million remains unused, money 
        that could be used to support a surveillance system covering 
        new and emerging diseases would also support the infrastructure 
        for CISS. Although the pork industry has been working 
        cooperatively with APHIS and the agency has committed to 
        developing a CISS, the President's USDA budget for fiscal 2013 
        inexplicably proposed a reduction of $2.6 million for swine 
        disease surveillance. The justification for the decrease is 
        inconsistent with USDA's commitment and the requirements for 
        implementing a CISS. The ability to expand surveillance to 
        include other diseases will increase exports. Reducing 
        surveillance provides other countries the justification to 
        restrict U.S. exports because of inadequate surveillance data.

    U.S. pork producers also support USDA's animal traceability system. 
        An effective traceability system is critical to the national 
        animal health infrastructure and is required for certification 
        by the World Organization for Animal Health (OIE). The ability 
        to quickly trace diseased and exposed animals during a foreign 
        animal disease outbreak would save millions of animals, lessen 
        the financial burden on the industry and save the American 
        taxpayer millions of dollars. With support from all sectors of 
        the pork industry, approximately 95 percent of pork producer's 
        premises already are registered under the USDA livestock 
        identification program. Premises identification is the key to 
        meeting a goal of tracing an animal back to its farm of origin 
        within 48 hours, which would allow animal health officials to 
        more quickly identify, control and eradicate a disease, to 
        prevent the spread of a disease or to make certifications to 
        our trading partners about diseases in the United States.

    3. Expanding markets to U.S. pork products increases producers 
        bottom line and contributes significantly to the U.S. economy, 
        prompting job growth and increasing the U.S. gross domestic 
        product. Pork represents 44 percent of global meat protein 
        intake. far more than beef and poultry, and world pork trade 
        has grown significantly in the past several years. The extent 
        of this increase in global pork trade in the future will hinge 
        heavily on continued efforts to increase agricultural trade 
        liberalization.

    The U.S. pork industry exported in 2011 more than $6 billion of 
        product, which supported more than 50,000 jobs. And the trade 
        agreements with Colombia, Panama and South Korea approved last 
        fall, when fully implemented, will boost U.S. pork exports to 
        those countries by a combined $772 million, add $11 to the 
        price producers receive for each hog marketed and generate more 
        than 10,000 U.S. pork industry jobs. It is estimated that U.S. 
        pork prices were $55 per hog higher in 2011 than they would 
        have been in the absence of exports.

    It is important to emphasize the need to strengthen the ability of 
        U.S. agriculture to compete in the global marketplace. But the 
        downside of growing exports is, of course, the larger economic 
        impact on producers and the U.S. economy should there be any 
        disruption in trade. Pork producers understand this dynamic and 
        recognize that it would be devastating for the U.S. pork 
        sector.

    4. Protecting producers against disruptions in trade is paramount. 
        Produces like Asay need better risk-management tools to protect 
        their operations should exports markets ever be interrupted by 
        a serious animal disease outbreak in this country.

    Such tools are needed now, more than ever. Outbreaks of devastating 
        foreign animal diseases such as foot and mouth, classical swine 
        fever and African swine fever are increasing around the world. 
        The increased presences of disease, along with increasing 
        international travel and trade that move diseases around the 
        world, have created an unprecedented risk to the U.S. pork 
        industry.

    According to a recent study, revenue for the combined beef and pork 
        industries would fall by billions of dollars annually as a 
        result of a foreign animal disease outbreak. The recent free 
        trade agreements with Colombia, Panama and South Korea as well 
        as economic growth in China will lead to continued pork export 
        expansion. But if these export markets are lost and livestock 
        producers are forced to bear the resulting financial harm, 
        there will be thousands of bankruptcies in rural America. 
        Further, USDA is expected to change its traditional approach to 
        dealing with foreign animal diseases from ``stamping out'' to 
        one that includes vaccinating and, potentially, living with 
        diseases for an undetermined time.

    There is a simple solution to the elevated risk in livestock 
        production. USDA has been running a pilot insurance program for 
        hog producers called Livestock Gross Margin (LGM). The program 
        is designed to protect hog producers from systemic risk much as 
        crop insurance programs do for crop producers. The program now 
        is ready for prime time and should be allowed to take on this 
        role. To structure the program to provide inexpensive, 
        catastrophic coverage, Congress would need to remove the $3 
        million cap on swine insurance.

    The $3 million limit on spending has caused USDA to severely 
        restrict the number of head that any one producer can insure. 
        In fact, last year just 205,883 hogs were covered; in 2010, 
        only 263,454 hogs were covered. With the U.S. pork industry 
        marketing more than 110 million hogs a year, it is clear that 
        the current LGM program has little benefit to pork producers.

    The limit on coverage--Congress capped the program for all species 
        at $20 million ($16 million is used by the dairy industry), and 
        USDA set a coverage limit of 30,000 head--is a new development 
        for USDA's Risk Management Agency (RMA) because there is no 
        upper limit on the number of crop acres that can be insured 
        under other RMA policies. There is nothing in the Federal Crop 
        Insurance Act that allows RMA to engage in social engineering 
        of this type. [n fact, the Agriculture Risk Protection Act of 
        2000 states the following:

    <bullet> Eligible producers:

      Any producer of a type of livestock covered by a pilot program 
            under this subsection that owns or operates a farm or ranch 
            in a county selected as a location for that pilot program 
            shall be eligible to participate in that pilot program.

    The limit on the insurable livestock farm size is unfortunate for 
        two reasons. First, the livestock industry is evolving toward 
        larger production units, and these larger units are essentially 
        prohibited from using the product as a catastrophic policy to 
        cover their output in excess of the numerical limits. Second, 
        the existence of a limit is divisive, potentially pitting 
        smaller units against larger ones.

    Additionally, LGM for swine now is available only for a 6 month 
        period. This is not enough coverage to protect against drought 
        or to downsize an operation. This is easily fixed, and a policy 
        that insures for one year is feasible. This policy would roll 
        over every month so producers always have one year of insurance 
        coverage.

    The owners of LGM have indicated that they are willing to make the 
        changes described above if the $3 million limit is eliminated 
        and the policy is allowed to move beyond pilot status.

    Finally, companies and agents selling LGM are reimbursed based on 
        the premium paid by the producer rather than on the number of 
        policies. Total administration and operation (A&O) 
        reimbursement for companies and agents is set at 22.2 percent 
        of the producer premium. This means that a catastrophic policy 
        that sells at $1 per hog for 500 hogs would have a total A&O of 
        $111. This A&O needs to be split to cover the company's costs 
        and the agent's costs. A typical reimbursement for selling a 
        crop insurance policy is from $500 to $700. This percentage-
        based A&O policy for livestock makes it economically infeasible 
        for the agent to sell catastrophic policies or to sell to 
        smaller producers. One easy remedy is to allow the agent to 
        choose between reimbursement based on a percent of the premium 
        or a fixed per-contract amount.

    Today, because of the growth in exports of U.S. pork products and 
        the increased chances of a foreign animal disease outbreak, the 
        potential for a catastrophic drop in hog prices is greater than 
        ever. And the stakes for the U.S. economy, which garners $35 
        billion annually in gross domestic product and 550,000 jobs 
        from the U.S. pork industry, also are great.

    The U.S. pork industry has done much to protect itself, including 
        increased biosecurity on farms, implementation of a national 
        swine identification program and calls for a comprehensive 
        disease surveillance system, but it needs more. Pork producers 
        encourage Congress to urge USDA to develop a catastrophic 
        insurance product that is more in keeping with today's swine 
        industry needs.

    5. Protecting the environment is a top priority of the U.S. pork 
        industry. Pork producers are committed to running productive 
        pork operations while protecting the environment and exceeding 
        environmental regulations. Pork producers have fought hard for 
        science-based, affordable and effective regulatory policies 
        that meet the goals of today's environmental statues. For 
        producers to meet these costly demands while maintaining 
        production, they believe that the Federal Government must 
        provide through conservation programs of the farm bill. such as 
        the Environmental Quality Incentives Program (EQIP), cost-share 
        support to help them defray some of the costs of compliance.

    The EQIP program has not provided pork producers with enough 
        support to meet all the challenges we face related to 
        conservation and the environment. Producers like Asay, who has 
        used the program, would like to see the scope of projects 
        covered by the program widened.

    Pork producers take a broad view of what it means to be 
        environmentally responsible farmers and business people, and 
        they have embraced the fact that their pork processing 
        operations must protect and conserve the environment and the 
        resources they use and affect. They take this responsibility 
        with the utmost seriousness and commitment. and it is in that 
        spirit that producers would make major contributions to 
        improving their practices through a conservation title of the 
        farm bill.

    Investing in research also is critical to the U.S. pork industry. 
        Producers rely on it for improving swine genetics, testing and 
        deploying new and improved animal vaccines, improving the 
        usefulness of energy production by-products such as distillers 
        dried grains and for further increasing animal productivity. 
        Research also can assist in monitoring diseases and preventing 
        a disease outbreak.

    6. Dictating how the U.S. pork industry buys, sells and raises its 
        animals would severely cripple the competitiveness of pork 
        producers. Mandates--whether pushed by lawmakers or activists--
        must not stand in the way of market-based demands. Producers 
        understand that the issue of banning packer ownership of 
        livestock or eliminating forward contracting continues to be 
        discussed. However, they do not believe that the U.S. pork 
        industry will be well served by having Congress eliminate 
        certain types of contracting mechanisms. This only forces the 
        livestock markets to revert to an inefficient system used more 
        than half a century ago in which livestock were traded in small 
        lots and at prices determined in an open-market bid system. 
        This system was inefficient and makes no economic sense in 
        today's economy. Today, the U.S. pork industry has developed a 
        wide variety of marketing and pricing methods, including 
        contracts, to meet the changing needs of a diverse marketplace.

    Economics should determine the structure of pork production and 
        processing, including the ownership of both. No economic 
        research ever has shown that either the structure or marketing 
        practices of the industry have harmed producers or consumers. 
        Until such research exists, Congress should not impose 
        limitations on packer ownership of production, producer 
        ownership of packing or marketing contracts.

    Likewise, Federal mandates on production practices, including ones 
        that would dictate animal housing systems, would add to 
        producers' costs and weaken the U.S. pork industry's 
        competitiveness vis-a-vis foreign competitors. It is for those 
        reasons that producers oppose the ``Egg Products Inspection Act 
        Amendments'' (H.R. 3798), which would dictate the size of cages 
        for laying hens.

    The bill would amend a Federal food-safety law. If provisions of 
        that law are imposed on imported products, they must meet the 
        World Trade Organization's equivalency principle, which 
        requires governments to recognize other countries' science-
        based measures as acceptable even if they are different from 
        their own, so long as an equivalent level of protection is 
        provided.

    But proponents of H.R. 3798 have admitted that the standards in 
        this bill are arbitrary and were part of a negotiated 
        settlement between an industry group and an animal activist 
        group; they are not based on science that protects and improves 
        food safety and public health. If imposed on imported products 
        (eggs, in this case), they would not meet the WTO's equivalence 
        principle.

    The U.S. pork industry has no doubt that activist groups and 
        special interest groups will be watching this farm bill debate 
        and will attempt to push their particular agendas, which would 
        add regulations to our business practices. Lawmakers must be 
        cautious about allowing these issues to be added to the 2012 
        Farm Bill--a piece of legislation that has been aimed for the 
        past 65 years at maintaining the competitiveness of the U.S. 
        agriculture and livestock sectors.

    The U.S. pork industry has developed and implemented strict 
        standards for animal care and judicious use guidelines for use 
        of animal drugs. These standards and guidelines are now part of 
        the industry's pork quality assurance and transport quality 
        assurance programs. These require producers and handlers to be 
        trained and certified to care and transport our animals with 
        the utmost care and concern. Pork producers do not believe that 
        Congress should legislate on these issues as part of the 2012 
        Farm Bill.

    Congress should craft a farm bill that helps farmers like Gary Asay 
remain competitive in the domestic and world markets.

    The Chairman. Thank you, Mr. Asay.
    Mr. Davis, proceed whenever you are ready.

STATEMENT OF TERRY DAVIS, CORN AND SOYBEAN PRODUCER, ROSEVILLE, 
                               IL

    Mr. Davis. Hello. Good morning, my name is Terry Davis, a 
corn and soybean farmer from Warren County, in Roseville, 
Illinois. Good morning, Mr. Chairman and Members of the House 
Agriculture Committee gracious enough to come before us today 
and those in attendance here today to listen to this important 
discussion. Today, we all share one commonality, this is our 
America. I wish to welcome everyone here today to my America, 
as I live only about 30 miles from this site. To describe this, 
I will use a line from the song by Irving Berlin, ``God Bless 
America, land that I love, stand beside her and guide her.'' I 
come here this morning to tell you how I stand beside my part 
of America, not only to provide for my family but to provide 
this country with a plentiful, healthy, sustainable food 
supply; and hopefully raise enough extra that I can share my 
bounty with others around the world. And I ask you here today 
to be the guide, guide her to share my philosophy with the rest 
of the world.
    I will comment on a story that I will share. Go back to 9/
11/2001. I was traveling to an ethanol plant meeting, the 
formation of a group we were having and I received a phone call 
that we could not meet that day because something had happened 
in New York City and Washington, D.C. I did not yet know at 
that time what that was.
    Later that afternoon, I had the opportunity to receive a 
phone call from my wife that was waiting in an hour and a half 
long line at a gas station to get gasoline for her car because 
of what was going on that day. I was headed to a meeting that 
afternoon, happened to drive by a gas station, saw the line, 
told my wife if that was the last tank of gas she was ever 
going to get, she was better off to come home, because the 
grocery truck would not make it to the store tomorrow morning. 
But to my shock, as I drove to that meeting that afternoon, 
there was no one at the grocery stores, everybody was at the 
gas stations buying gasoline.
    And the reason I think this important for this discussion 
today is that energy was important to us, yes; but why have we 
forgotten about food? If it comes down to a tank of gasoline or 
a loaf of bread, I know which line I am going to be in.
    I would like to talk about the conservation title today. 
This title is often understated in its importance to the 
overall farm bill and I feel it is one of the most critical to 
its overall mission. I served as the Association of 
Conservation District's President here in Illinois and I had a 
column that I used every month to talk about the things that I 
felt were important for the Soil and Water Conservation 
District. I closed that column every month with this closing. 
``As always, remember that this is God's handiwork we are 
entrusted to watch over. Let us make him proud.''
    We all farm the land, we survive off of the bounty of our 
land, but we are just stewards of that land and we are allowed 
the privilege of being the caretakers of the land that we work 
during our lifetime. American agriculture is being tasked with 
a mission never before seen in modern history, that is the need 
to feed and protect more people with limited and in some cases 
dwindling natural resources. Every day in this country more 
land is converted for non-agricultural uses while all the while 
trying to feed a growing population. I am not advocating a 
moratorium on non-ag uses of the productive working land of the 
United States, but refocusing on what is of greater importance; 
cropland, animal production, forestry needs rather than 
development for social uses.
    A strong underlying safety net is going to be necessary for 
creating a sustainable food supply. We need a strong 
commodities title along with a crop insurance program utilizing 
current programs and funding with a few tweaks. I feel that 
this underlying support should come from Federal farm programs 
to ensure that any raw input commodity producer receives enough 
support to ensure that they will again next year be able to 
raise production because of the alteration of this year's 
production, or due to weather or financial condition. This 
level should cover variable costs and protect against 
significantly lower commodity prices and a little bit more.
    The farm bill provisions are intertwined and work together 
to be much more successful than any title will individually. A 
comprehensive, robust title I for commodities ensures continued 
sustainable domestic food supply. A vibrant renewable energy 
title can not only provide energy sources here at home but also 
create environments for natural resource conservation while 
allowing producers to generate income and provide an outlet for 
excess production. This excess production we will always need. 
As before, we have used loan rates and government sponsored 
storage to keep extra production. Today, we have the ability to 
allow farmers to hang onto those reserves and convert them into 
renewable energy sources if not needed as a fuel source. But if 
that crop is never raised, it will never be available if 
needed. A secure, adequately funded conservation title will 
create those opportunities.
    I thank you for this opportunity to be before you this 
morning and look forward to your questions. Thank you.
    [The prepared statement of Mr. Davis follows:]

     Prepared Statement of Terry Davis, Corn and Soybean Producer, 
                             Roseville, IL
    Good morning Chairman Lucas, distinguished Members of the House 
Agriculture Committee, House staff, the other invited panel members and 
all others here in attendance today we all share one commonality this 
is OUR AMERICA. I wish to welcome everyone to my America, as I only 
live about 30 miles from this site, and to describe this I will use a 
line from the song by Irving Berlin; ``God Bless America, Land that I 
love. Stand beside her, and Guide her''. I have come here before you 
this morning to tell you of how I stand beside my part of America, not 
only to provide for my family but to provide this country with a 
plentiful, healthy, sustainable food supply and hopefully raise enough 
extra that I can share my bounty with others around the world.
    I come before you this morning to share from my perspective, a 
perspective that recognizes the importance of a strong equitable 2012 
Farm Bill. This perspective does not want to rewrite farm bill policy 
totally, but rather celebrate its successes and build upon and those 
successes and hopefully craft a new 2012 Farm Bill that addresses the 
needs of the next 5 years and reviews and retires no longer pertinent 
addressed items. This bill has many titles expressed under its banner, 
but I feel that they are all intertwined and dependent upon each other 
for successful implementation of this farm bill. I do not feel that any 
title within the farm bill is any more important than another title; it 
is only with fair deliberation, implementation, and adequate 
appropriation that any farm bill effort will accomplish its goal. That 
goal is of GUARANTEEING the same goals that I have set for myself, to 
provide this country with a plentiful, healthy, sustainable food supply 
and then produce enough extra that I can share my bounty with others 
around the world. I recognize that this task becomes a little more 
complicated at the national level. I also realize that numerous, 
different segments of the populous want to have inclusions in this farm 
bill; but I feel strongly that the goal here in the farm bill is to do 
what government can to make sure that every American has adequate 
access to something to eat and then to have access to the food, energy 
and fiber materials that we need to exist and prosper.
    The area I would like to focus your attention to right now is the 
conservation title. This title often understated in its importance to 
the overall farm bill but I feel it is one of the most critical to its 
overall mission. I have had the opportunity to serve the association 
that speaks for the Soil and Water Conservation Districts here in 
Illinois as its President and as part of my duties was to write a 
monthly column for the organization's newsletter. I closed that column 
every month with this closing, ``As always, Remember that this is God's 
handiwork we are entrusted to watch over. Let's make him proud''.
    I am a Christian, but maybe for sake of this day more important is 
the fact that we are all just stewards that are allowed the privilege 
of being the caretakers of the land we work on during our lifetimes. 
American agriculture is being tasked with a mission never seen before 
during modern history, that of a need to feed and protect more people 
with limited and in some cases dwindling natural resources. Every day 
in this country more land is converted for non agricultural uses all 
the while trying to feed a growing population. I am not advocating a 
moratorium on non ag uses of the productive working land of the USA but 
refocusing on what is of greater importance; cropland, animal 
production, forestry needs rather than development for social uses.
    We only need to look back into our country's history to see how 
important conservation has become. It began a a desire to protect 
things that were unique or in someone's opinion important to protect. 
Our National Park System and other Federal public lands as well as 
state and local public land holdings recognize that resources need 
preserving for future generations. Now as it becomes apparent that the 
working lands of this country are finite and that we need to protect 
them. The challenge here is that we cannot just lock them away but have 
to use them sustainably. The conservation accomplishments that have 
been achieved by this country are nothing short of spectacular, but 
vigilance and continued efforts are paramount to the survival of the 
human species as we wish it to be. Once our natural resources are lost 
our prosperity also will be lost. Conservation for me on my farm means 
this: Preservation of the natural resources not only for my benefit but 
to preserve the ability to utilize those by future generations and by 
using the conservation title of the farm bill in conjunction and along 
with other titles within the farm bill to secure and preserve a stable, 
sustainable food, fiber, and renewable energy supply.
    To understand the working lands let us look back to the 1930's This 
country was trying to rebuild itself as for the first time in our 
country's history we had a large segment of the population that finally 
did not have to work the land for themselves but could have someone 
else furnish those needs for them while they enjoyed prosperity through 
the financial markets. Then that bubble burst in 1929 and sent many 
scrambling back to feed themselves. A result of that was accelerated 
damaging of new marginal lands in production. The lack of understanding 
that marginal lands means just that marginal, the Dust Bowl resulted 
and many more people found themselves struggling to just survive. Throw 
in Mother Nature creating a drought. Hugh Bennett came along and 
championed for working land as some say Theodore Roosevelt did for 
public land preservation. The result being the formation of the Soil 
Conservation Service. As I look at drought indicators today I realize 
that the results of the formation of SCS are what separates the Dust 
Bowl Days from what we experience today. Thus this conservation title 
is very important in the protection of the working lands of the USA. We 
do not need to extensively rewrite this title in the next farm bill but 
continue to focus on what are the critical needs. In my estimation NRCS 
and the EQIP program needs further funding and expansion. This is a 
very efficient and effective way to get conservation on the ground. I 
believe many other programs needs can be accomplished through EQIP and 
allowing prioritization to fit financial budgets. There is an attitude 
currently that since EQIP is receiving funding those funds can be 
rediverted to under-funded special interest programs and this has to be 
curtailed. The NRCS EQIP system already is set up to allow states to 
cater the funding to localized needs thus improving effectiveness of 
monies spent.
    There does need to be a conservation compliance component to 
complement production safety nets. Production agriculture is changing 
and there needs to be compliance to guarantee sustainability and to 
protect the accomplishments that the millions of Federal assistance 
dollars that have already been spent on have achieved. I have noticed 
that as farms get bigger, operations become more specialized, with 
farmers many times not even seeing the land only the tractor operators. 
These operators only have one mission, that is to do what they are 
instructed. The farmer producer may not even be aware of a problem 
occurring until confronted by some outside entity or agency. 
Conservation compliance is the strongest tool in the farm bill to 
ensure good stewardship and wise use of Federal funds.
    A strong underlying safety net is priority one to creating a 
sustainable food supply. The tools of choice are a strong commodities 
title along with a crop insurance program utilizing current programs 
and funding with a few tweaks. All crops need to have a insurance 
program developed around them, including livestock. This underlying 
support should come from Federal farm program funding to ensure that 
any raw input commodity producer receives enough support to ensure that 
they will try again the next year if their production falters because 
of weather or financial conditions. This level should cover variable 
costs and protect against significantly lower commodity prices and 
little more to limit government exposure and allow efficient producers 
to determine who farms the land not who has the best crop insurance 
protection. Livestock producers could be included by a similar 
insurance plan limiting coverage to cost of feed inputs. Producers 
should be allowed to buy up insurance protection to higher levels but 
that risk should not be financed or underwritten by the Federal budget 
but rather an unsubsidized function by private insurance companies and 
risk assessed and rated accordingly by the insurance industry.
    Farm bill provisions are intertwined and working together will be 
much more successful than any title individually. A comprehensive, 
robust title I for commodities ensures a continued sustainable domestic 
food supply. A vibrant renewable energy title can not only provide 
energy sources here at home but create environments for natural 
resource conservation while allowing producers to generate income and 
provide an outlet for excess production. This extra production will 
always be in reserve in case there is a need to use it as a food 
source. But if that crop is never raised it will never be available if 
needed. A secure, adequately funded conservation title will create 
opportunities and preserve and protect natural resources for continued 
future utilization.
    Once we have created this plentiful food supply we need to be able 
to allow all Americans some kind of access to it. Current food aid 
provisions are sometimes abused and probably need attention to weed out 
fraud and abuse. If there were only certain types of purchases that 
could be made would help ensure proper use of funds. Stories like those 
of persons buying soda with Federal food aid assistance and then 
recycling unopened soda cans in automated can recyclers for the cash 
generated by the cans is an example of misuse of a valuable system to 
society.
    Thank you for allowing a taxpayer to comment on this subject. To 
achieve these goals we only need to keep refocusing on what is first 
priority and what financial resources we are willing to commit to 
achieve those goals. Current farm bill programs have accomplished so 
much for the safety and prosperity of the United States. Hopefully the 
2012 Farm Bill will further allow America to be the proud beacon of 
hope for the rest of the world.
    I close my testimony as I did for my informational column:

        ``As always, Remember that this is God's handiwork we are 
        entrusted to watch over.

        Let's make him proud.''



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        

    The Chairman. Thank you, Mr. Davis.
    Mr. Howell, you may proceed.

   STATEMENT OF DAVID W. HOWELL, CORN, SOYBEAN, PUMPKIN, AND 
                TOMATO PRODUCER, MIDDLETOWN, IN

    Mr. Howell. Good morning. My name is David Howell. I am 
honored to be here this morning to testify.
    I am a farmer from Middletown, Indiana. My wife and I 
started our family farm in 1971. It is our vision that our 
children will be able to carry on. Our family farm is 
approximately 7,000 acres, more than 90 percent of which is 
leased. We grow corn, soybeans, about 500 acres of jack 
o'lantern pumpkins and about 500 acres of processing tomatoes. 
Our tomato production is under contract to a company called Red 
Gold, Inc., an Indiana tomato processing company.
    We are seeking a modification of Federal law that restricts 
Midwestern farmers from growing fruits and vegetables on 
program acres.
    The issue: since 1996, the farm policy has generally 
prohibited production of fruits and vegetables on base acreage. 
However, this was not significant until the 2002 Farm Bill, 
which made soybeans a program crop. This change meant that 
virtually all of the quality farmland in states like Indiana 
and Illinois now have a program base.
    The problem is two-fold.
    First, program restrictions. For example, our farm has been 
personally affected by the prohibition on growing fruits and 
vegetables. Our family is in transition to the next generation 
from my wife and me. We began our processing tomato operation 
in the early 1990s and established our personal production 
history over the years. The regulations as they stand now serve 
to limit the abilities of my children to diversify their 
farming enterprise with specialty crops. In essence, the 
prohibition on planting fruits and vegetables are protecting my 
wife and me from our own children. This seems contrary to any 
goal of encouraging young farmers. Additionally, we are needing 
to change our business structure to ensure an orderly 
generational transfer. When we do, however, our producer 
history will be lost.
    Second, fear of base acreage loss. We have struggled to 
rent ground for growing processing tomatoes and pumpkins over 
the years. In the Midwest, most family farms rely on rented 
acres to grow their crops. I have found that the landlords 
fear, and rationally so, that future base recalculations will 
result in loss of base acres on their farms if they rent for 
processing tomato production.
    H.R. 2675, the Farming Flexibility Act of 2011, would fix 
this twofold problem by allowing an acre-for-acre opt out from 
the program acreage for production of fruits and vegetables for 
processing. Also, it would declare a policy that vegetable 
production for processing on program base acres will not cause 
future loss of base acreage.
    I realize that some in the fresh produce industry do not 
agree with me. They make two basic point. And let me address 
those.
    They suggest that the 2002 Farm Bill restrictions do not 
present a real problem. And that is wrong.
    First, it is a problem because of the restrictions. As we 
attempt to pass along our operation to the next generation, our 
producer history will be lost. And it harms the traditional 
industry that provides safe and economical food to a population 
in need of better nutrition.
    Second, as a threat to base acreage, I and my landlords 
have lost base acres clearly.
    Third, it is a threat to my market. As times goes on, about 
five percent of Midwest vegetable producers stop growing 
vegetables each year. That means that each year, it will be 
harder for our processor market to stay in business because 
they cannot contract for enough production. This year is the 
first time that some of them were not able to contract for 
their production capacity. Eventually, we will lose those 
processors, and the canned vegetable market will be taken over 
by imports.
    Italians can put tomatoes on the East Coast cheaper than 
California canners. South America is already exporting a range 
of vegetables into these states, such as corn, asparagus, and 
tomatoes could not be far behind.
    Clearly, this is a real problem.
    Opponents of H.R. 2675 also claim that it would somehow 
hurt fresh produce producers. And this is also wrong. It would 
not hurt the producers.
    First, it is against the law for us to use or produce to 
sell to the fresh produce market and production would have to 
be for processing only. Penalties for the program are very 
high.
    Second, vegetables for processing are not the vegetable 
varieties produced for fresh market anyway.
    Third, H.R. 2675 would just take us back to the 1996 Farm 
Bill situation prior to the inclusion of oilseed acreage. Under 
the 1996 Farm Bill and even before that, the Midwestern 
processing industry was getting smaller, not expanding.
    There is no way that this would hurt the fresh produce 
producers.
    A final couple of points. I realize and support that direct 
payments may be eliminated in the next farm bill. If that is 
done, we submit that the restrictions on producing fruits and 
vegetables should be eliminated altogether. And obviously, the 
fruit and vegetables we grow for processing go to nearby 
processing facilities, which means jobs in rural America. This 
is important throughout the Midwest.
    Finally, the Federal Crop Insurance Program for specialty 
crops have not received the same refinement and upgrades as 
have traditional commodity crops and should be scrutinized to 
offer reasonable protection for the growers of our nation's 
food supply.
    Thank you for coming to the Midwest to hear us.
    [The prepared statement of Mr. Howell follows:]

  Prepared Statement of David W. Howell, Corn, Soybean, Pumpkin, and 
                    Tomato Producer, Middletown, IN
Introduction
    Good morning. My name is David Howell. I am honored to present 
testimony today.
    I am a farmer from Middletown, Indiana. My wife and I started our 
family farm upon returning home from college, and it is our vision that 
our children and their families will successfully transition what we 
sacrificed and worked hard to establish. Our family farms approximately 
7,000 acres, of which more than 90% is leased. We grow corn, soybeans, 
pumpkins and about 500 acres of processing tomatoes. Our tomato 
production is under contract with Red Gold, Inc., an Indiana tomato 
processing company.
    We are seeking a modification of Federal law that restricts 
Midwestern farmers from growing fruits and vegetables on program acres. 
I am here as one family farmer, but we do concur totally with the 
position of the American Fruit and Vegetable Processors and Growers 
Coalition (AFVPGC).
The Issue
    Since 1996, farm policy generally has prohibited the production of 
fruits and vegetables on base acreage. However, this was not a 
significant problem until the 2002 Farm Bill made soybeans a program 
crop. This change meant that virtually all of the quality farmland in 
states like Indiana now have program base.
    The problem is twofold.
    First, program restrictions. For example, our farm has been 
personally affected by the prohibition on growing fruits and 
vegetables. Our family is in transition to the next generation from my 
wife and me. We began our processing tomato operation in the early 
1990's and established our personal production history over the years. 
The regulations as they stand now serve to limit the abilities of my 
children to diversify their farming enterprise with specialty crops, 
not enhance them as any good agricultural policy would attempt to do. 
In essence, the prohibition on planting Fruits and Vegetables are 
protecting my wife and me from our own children entering the very 
enterprise that will help ensure their success because there is no 
mechanism for them to either earn their own producer history or have my 
producer history transferred to them, even though we have been 
continuously engaged in growing processing tomatoes for nearly 20 
years. This seems contrary to any goal of encouraging young farmers to 
seek alternative crops and provide a more sustainable future, both 
economically and environmentally. Additionally, we are needing to 
change our business structure to ensure an orderly generational 
transition. When we do, however, our producer history will be lost.
    Second, fear of base acreage loss. We have struggled to get rented 
ground for growing our processing tomatoes and pumpkins. In the 
Midwest, most family farms rely on rented acres to grow their crops. I 
have found that landlords who I have approached fear, and rationally 
so, that future base recalculations will result in loss of base acres 
on their farms if they rent it to me for processing tomato production. 
This means that my ability to rotate crops as a good IPM practice and 
to fulfill my traditional contract obligation to Red Gold is severely 
restricted.
    H.R. 2675, the Farming Flexibility Act of 2011, would fix this 
twofold problem by allowing an acre-for-acre opt out from the program 
acreage for production of fruits or vegetables under contract for 
processing. Also, it would declare a policy that vegetable production 
for processing on program base acres will not cause future loss of base 
acreage.
    I realize that some in the fresh produce industry do not agree with 
me. They make two basic points. Let me address those.
    They suggest that the 2002 Farm Bill restrictions do not present a 
real problem. That is wrong.

  <bullet> First, it is a problem because of the restrictions. As we 
        attempt to pass along our operation to the next generation, our 
        producer history will be lost, because it is not transferable. 
        What my wife and I worked hard to establish under the rules 
        will simply vanish and the ability to lease production acres 
        for fruits and vegetables for processing will artificially be 
        hindered, not by a free market determination, but by a 
        protectionist decree that offers no actual protection but harms 
        a traditional industry that provides safe and economical foods 
        to a population in need of better nutrition.

  <bullet> Second, this is a threat to base acreage. I have lost base 
        acreage, some of my landlords have lost base acreage, and that 
        has happened to my neighbors who grow vegetables. This base 
        acreage experience is why my landlords generally will not let 
        me grow vegetables on leased land and in some cases 
        specifically prohibit the production of fruits and vegetables 
        because of this issue. My colleagues who grow vegetables are 
        facing the same thing. Most family farms have significant 
        production on leased land.

  <bullet> Third, this is a threat to my market. As time goes on, about 
        five percent of Midwest vegetables producers stop growing 
        vegetables each year. That means that each year, it will be 
        harder for our processor market to stay in business because 
        they cannot contract for enough production. This year is the 
        first time that some of them were not able to contract for 
        their production capacity. Each year this will get worse. 
        Eventually, we will lose processors, and the canned vegetables 
        market will be taken over by imports.

    <ctr-circle> Italians can put tomatoes on the East Coast cheaper 
            than California canners. South America is already importing 
            a range of other canned vegetables, such as corn and 
            asparagus.

    Clearly, this is a real problem.
    Opponents of H.R. 2675 also claim that it would somehow hurt fresh 
producers. This is also wrong.

  <bullet> H.R. 2675 is narrowly tailored. It would not hurt fresh 
        producers.

    <ctr-circle> First, it would be against the law for us to grow 
            vegetables for fresh markets. H.R. 2675 would only allow 
            opt out for FAV production FOR PROCESSING. The production 
            would have to be for processing.

      <bullet> Penalties for program violations are very heavy--I would 
            be crazy to intentionally violate program rules. (Penalties 
            are equal to twice the per acre value of the tomato crop 
            produced in violation.)

    <ctr-circle> Second, vegetables for processing are not the 
            vegetable varieties produced for fresh anyway. My family 
            has been growing processing tomatoes for 20 years and, even 
            though it has been legal to sell them to fresh markets, we 
            never have.

      <bullet> They are the wrong variety--not right for the fresh 
            market.

      <bullet> So, there is no market for them.

      <bullet> Where there is no market, there is no market 
            distribution system.

    <ctr-circle> Third, H.R. 2675 would just take us back to the 1996 
            Farm Bill situation prior to the inclusion of oilseed 
            acreage. Under the 1996 Farm Bill and even before that, the 
            Midwest processing industry was getting smaller, not 
            expanding.

    <ctr-circle> There is no way that this would hurt fresh producers.

    A couple final points. I realize that Direct Payments may be 
eliminated in the next farm bill. If that is done, we submit that the 
restriction on producing Fruit and Vegetables should be eliminated 
altogether. Of course, the fruit and vegetables we grow for processing 
go to nearby processing facilities, which means jobs in rural areas. 
This is important throughout the Midwest. Here in Illinois, there is a 
LIBBY'S facility that produces canned pumpkin, pumpkin pie filling and 
pumpkin bread from the pumpkins produced by 70 farmers on 8,000 acres. 
These pumpkin products have seen periodic shortages in recent years due 
to several factors, one of which is the company's difficulty in 
contracting enough acres. So, Farm Flexibility is critically important. 
The Federal Crop insurance programs for specialty crops have not 
received the same refinement and upgrades as have the traditional 
commodity crops and should be scrutinized to offer reasonable 
protection for the growers of our nation's food supply.
    Thank you for your consideration of our views.

    The Chairman. Thank you, Mr. Howell.
    Ms. Weber, please begin whenever you are ready.

     STATEMENT OF JANE A. WEBER, SPECIALTY CROP PRODUCER, 
                         BETTENDORF, IA

    Ms. Weber. Chairman Lucas, Representative Boswell, and 
distinguished Members of the Committee, I appreciate the 
opportunity to speak today about the impact of the farm bill 
from the perspective of a small farmer. My name is Jane Weber 
of Weber Farm, row crop farmer, specialty crop producer, and 
farmers' market vendor from Scott County in east central Iowa. 
I serve as a Soil and Water Conservation District Commissioner 
in my county to conserve the soil and improve water quality. 
There are several parts of the 2012 Farm Bill that are 
important to our farm, specialty crop producers, and 
conservation.
    First, the conservation title: the farmland in our area as 
well as my own farm historically benefitted from locally-led, 
incentive-based conservation practices of CRP, EQIP and various 
other conservation programs. Producers rely on the NRCS for 
technical help to develop conservation plans, design 
conservation practices, make wetland determinations, and 
provide guidance on highly erodible lands. Weber Farm has 
installed contour buffer strips, filter strips, grass 
waterways, tiling, and farmstead windbreak. Conservation 
technical assistance, funded by the NRCS, is critical to 
conservation practices getting installed through Soil and Water 
Conservation Districts in Iowa and to farm bill programs being 
implemented. Workloads in the USDA Service Centers remain high 
for conservation programs, while funding for CTA remains 
critically low. Without technicians, NRCS and SWCDs cannot 
deliver conservation programs.
    Four years ago the Cedar and Iowa Rivers flooded along with 
the Mississippi River, devastating the towns of Cedar Rapids, 
Iowa City, Columbus Junction and Oakville in eastern Iowa, 
along with the cropland in the water's path. Where conservation 
structures were not in place, soil was carried downstream along 
with the floodwaters. However, where two, three or more 
conservation practices occurred on farmland, the water damage 
was not as significant. Less soil and water left the area. In 
other words, the conservation practices worked.
    Last year, it was the Missouri River that flooded in 
western Iowa. More conservation practices installed before a 
disaster may protect our valuable resources from disaster. In 
the spirit of making the most economical choice, Congress 
should adequately fund conservation today to avoid the 
increased costs of repair tomorrow and in the future.
    Second, the nutrition title: as a farmers' market vendor, I 
participate in the Senior Farmers' Market Nutrition Program 
that provides fresh locally grown produce to low income seniors 
at the farmers' markets. This program has increased the 
profitability of producers and is appreciated by the consumers. 
Each year, I have inquiries from senior citizens on how to 
obtain vouchers and I have observed how the seniors frugally 
utilize them to stretch throughout the season. As Iowa's 
population is aging, I am seeing more demand for participation 
in the Senior Farmers' Market Nutrition Program. as well as an 
increasing need per person. In these economic times, seniors 
with fixed incomes are having difficulty eating nutritiously. 
Just as good nutrition helps all of us maintain good health, it 
would be cost-effective to help these seniors eat more fresh 
fruits and vegetables for better nutrition to keep them 
healthy.
    Third, the horticulture title: specialty crops are an 
important part of agriculture that allow farmers to diversify. 
Specialty Crop Block Grants try to help increase this 
competitiveness of specialty crops. In our state, they have 
supported educational efforts on food safety, research by our 
universities and marketing efforts that encourage consumers to 
choose locally grown products. I have written and received 
grants for two organizations. I have also served on a grant 
review board in our state. The grant process needs to be 
simplified so that more farmers' markets may access funds for 
marketing efforts to encourage consumers to buy fresh produce. 
These markets are the front lines in the direct marketing of 
specialty crops.
    A strong conservation title is important for our production 
agriculture. NRCS and SWCDs are the key delivery system at the 
local level. The availability of program funding and the CTA 
allow the implementation of conservation practices as long-term 
investments in the protection of our natural resources.
    Farm policy also must consider the growing consumer 
interest in fresh, healthy local food and provide access for 
low income populations. Specialty crop producers need a mix of 
programs aimed at enhancing profitability and an innovative 
marketing strategy to promote specialty crops and to educate 
consumers. The importance of passing the farm bill before break 
allows agencies to be prepared and producers to plant and make 
informed business decisions.
    Thank you.
    [The prepared statement of Ms. Weber follows:]

     Prepared Statement of Jane A. Weber, Specialty Crop Producer, 
                             Bettendorf, IA
    Chairman Lucas, Ranking Member Peterson, and distinguished Members 
of the Committee, I appreciate the opportunity to speak today about the 
impact of the Food, Conservation, and Energy Act of 2008 from the 
perspective of a small farmer. My name is Jane Weber of Weber Farm--row 
crop farmer, specialty crop producer, and farmers' market vendor--from 
Scott County, in east central Iowa. I serve as a Soil and Water 
Conservation District Commissioner in my county to conserve the soil 
and improve water quality. There are several parts of the 2012 Farm 
Bill that are important to our farm, specialty crop producers, and 
conservation.
Conservation Title
    The farm land in our area as well as my own farm has benefited from 
the locally-led, incentive-based conservation practices of the 
Conservation Reserve Program (CRP), Environmental Quality Incentives 
Program (EQIP), and various other conservation programs. Producers rely 
on the Natural Resources Conservation Service (NRCS) for technical help 
to develop conservation plans, design conservation practices, make 
wetland determinations, and provide guidance on highly erodible land 
(HEL). Weber Farm has installed contour buffer strips, filter strips, 
grass waterways, tiling, and a farmstead windbreak. Conservation 
Technical Assistance (CTA) funded by NRCS is critical to conservation 
practices getting installed through Soil and Water Conservation 
Districts (SWCDs) in Iowa and to farm bill programs being implemented. 
Workloads in USDA Service Centers remain high for conservation programs 
while funding for CTA remains critically low. Without technicians, NRCS 
and SWCDs can not deliver conservation programs.
    To protect our lakes and clean up our creeks and rivers from 
sediment and nutrient delivery, conservation programs are integral to 
improving water quality. As an IOWATER volunteer that participates in 
spring and fall snapshot water samplings in our county for 9 years, I 
have seen the results identify conservation needs in the community that 
our SWCD was able to help alleviate with conservation practices cost 
shared with landowners. As an Iowa Watershed Improvement Review Board 
(WIRB) member, I have seen the partnerships of NRCS, DSC, EPA 319, and 
WIRB work together to improve water quality in projects throughout our 
state.
    Four years ago the Cedar and Iowa Rivers flooded along with the 
Mississippi River devastating the towns of Cedar Rapids, Iowa City, 
Columbus Jct., and Oakville in eastern Iowa along with cropland in the 
waters' path. Where conservation structures were not in place, soil was 
being carried downstream along with the flood waters. However, where 
two, three, or more conservation practices occurred on farmland the 
water damage was not as significant. Less soil and water left the area. 
In other words, the conservation practices worked.
    Last year it was the Missouri River that flooded in western Iowa. 
While the 2012 Farm Bill needs to address Emergency Conservation 
Program (ECP) as it funds the technical assistance and rehabilitation 
of farmland after a natural disaster, more conservation practices 
installed before a disaster may protect our valuable resources from 
disaster. In the spirit of making the most economical choice, Congress 
should adequately fund conservation today to avoid the increased costs 
of repair in the future.
Nutrition Title
    As a farmers' market vendor I participate in the Senior Farmers' 
Market Nutrition Program that provides fresh, locally grown produce to 
low income seniors at the farmers' markets. This program has increased 
the profitability of producers and is appreciated by the consumers. 
Each year I have inquiries from senior citizens on how to obtain 
vouchers and I have observed how the seniors frugally utilize them to 
stretch throughout the season. As Iowa's population is aging, I am 
seeing more demand for participation in the Senior Farmers' Market 
Nutrition Program as well as an increasing need per person. In these 
economic times, seniors with fixed incomes are having difficulties in 
eating nutritiously. Just as good nutrition helps all of us maintain 
good health, it would be cost effective to help these seniors eat more 
fresh fruits and vegetables for better nutrition to keep them healthy.
    I also participate in the Supplemental Nutrition Assistance Program 
(SNAP) utilizing an electronic bank transfer (EBT) wireless machine at 
the farmers' markets. Many of the farmers' market vendors who tried 
this program at the onset have discontinued due to the cost of 
transactions for SNAP. A client could buy a $.35 zucchini making the 
transaction fees higher than the purchase. A vendor actually would lose 
money after paying the monthly fees and transaction fees that are not 
allowed to be reimbursed. If all the costs and transaction fees 
involving the SNAP could be reimbursed, more vendors would participate 
in the program. However, it may not be cost effective as I have had a 
month where the monthly fees were higher than the total sales for SNAP 
as well. It would take more consumer education to make this program 
more beneficial to all concerned.
Horticulture Title
    Specialty crops are an important part of agriculture that allow 
farmers to diversify. Specialty Crop Block Grants try to help increase 
the competitiveness of specialty crops. In our state they have 
supported educational efforts on food safety, research, and marketing 
efforts that encourage consumers to choose locally grown products. I 
have written and received grants for two organizations, the Mississippi 
Valley Growers' Association, Inc. and the Iowa Farmers' Market 
Association. I have also served on the grant review board in our state. 
The grant process needs to be simplified so that more farmers' markets 
may access funds for marketing efforts at their local level to 
encourage consumers to buy fresh produce. These markets are the front 
lines in the direct marketing of specialty crops. The current grant 
process has become more difficult for a farmers' market to obtain. A 
professional grant writer and/or administrator is needed so 
universities and other organizations with access to grant writers are 
more likely to apply and consequently, receive the grants.
Conclusion
    Many farm bill programs have an impressive success rate. A strong 
conservation title is important for production agriculture. NRCS and 
SWCDs are the key delivery system at the local level. The availability 
of program funding and CTA allow the implementation of conservation 
practices as long-term investments in the protection of our natural 
resources.
    Farm policy must consider the growing consumer interest in fresh, 
healthy, local food and provide access for the low income population. 
Specialty crop producers need a mix of programs aimed at enhancing 
profitability and an innovative marketing strategy to promote specialty 
crops and to educate consumers. The importance of passing the farm bill 
before break allows agencies to be prepared and producers to plan and 
make informed business decisions.

    The Chairman. Thank you.
    I now recognize myself for 5 minutes.
    Mr. Asay, let us visit for a moment. You not only are a 
producer of feed grains, but you are a consumer of feed grains. 
And one of the issues that has come up time and time again in 
my home area in the northwestern half of Oklahoma is the 
question about having enough grain for beef cattle and pork and 
poultry operations. Tell me what your observations in the last 
few years have been. Are we meeting the demand, along with our 
needs for energy production, are we meeting the demand of our 
livestock industries in this country?
    Mr. Asay. Mr. Chairman, the last 2 years, we have had some 
tight carryovers. There have been some concerns for pork 
producers at times about feed availability. We have made it 
through the last couple of years without any major problems. 
Pork producers have done a lot of change in diets, use a lot of 
DDGS to substitute for corn and soybean meal in the diets to 
help get through in these periods and help make the adjustments 
needed. But there is still concern that sometimes if we have an 
extremely short crop that the availability of feedstuffs may be 
limited if we do not have some kind of adjustment in the fuel 
standard.
    The Chairman. Putting your other hat on, Mr. Asay, as a 
grain producer as well as a feeder, the number of acres in the 
CRP program, I think reflecting grain prices in the re-
enrollments, are coming down slowly. Does that concern you as a 
grain producer if your fellow farmers around the country are 
taking the signal it is time to produce more and putting some 
higher quality land back into production?
    Mr. Asay. It ultimately could put some pressure on the 
grain prices, but the market is the one making the decision for 
producers to bring that out, so I believe it is reacting to 
market factors.
    The Chairman. Since CRP is, after all, a voluntary 
participation program you bid into and stay with a 10 year 
contract.
    Let us touch on one other subject, Mr. Asay, and then I 
will turn to some of your colleagues on the panel.
    You mentioned H.R. 3798. Some folks describe that as a bill 
attempting to take a negotiated agreement between a trade group 
in one region and an animal rights group, and impose it on the 
rest of the country. Is that a fair assessment?
    Mr. Asay. I would agree on that assessment. It's fairly 
scary to producer animals to have two groups try to set some 
standards on a regulatory issue. I would rather see market 
factors influence how animals were raised in this country.
    The Chairman. Fair enough.
    Mr. Williams, in your statement, you discuss the importance 
of having a reference price and a plug yield built into any 
revenue-based program. Could you expand a little bit more on 
that, why that matters?
    Mr. Williams. The reason it matters is because if you have 
consecutive bad years, 3 or 4 bad years of either drought or 
excessive wet weather, as your yields, your personal yields go 
down, every year your guarantees keep going down. So the plug 
yield would be something like a county T-yield or something of 
that nature, and the price would be somewhere along the revenue 
price of the crop insurance yield that would be there to 
coordinate with the plug yields to keep your dollar--your 
revenue guarantees level.
    The Chairman. Thank you for that very clear and 
understandable explanation for the record. This is a topic 
being much discussed in the hallways of Congress these days.
    Ms. Weber, you mentioned conservation and your involvement. 
I must tell you as a Member of Congress who represents the part 
of the great country that probably was more centered in Mr. 
Steinbeck's book in the 1930s than any other--and we will not 
discuss what we think of that in northwest Oklahoma, but that 
is a whole different subject--we too are very fond of voluntary 
conservation programs. We too are very fond of the upstream 
flood control programs and are very focused on rehabilitating 
those structures. The chief challenge we have, as was alluded 
to several times today, is with the number of dollars available 
to us coming down, the tough decisions that we have to make to 
meet our part of the overall deficit reduction efforts that the 
United States House is prioritizing.
    Could you expand for just a moment on why, as you so 
clearly pointed out in your testimony, why conservation is a 
long-term investment that benefits not just tomorrow but 
decades from now?
    Ms. Weber. The key word right now is----
    The Chairman. And that is called baiting a witness 
actually, for the record.
    [Laughter.]
    Ms. Weber. The key word is sustainability; whether it is in 
specialty crops or other types of production agriculture, 
sustainability. The only way you are going to have 
sustainability is if you have that good topsoil to produce the 
product. And if it is going downstream in weather-related 
events and causing hypoxia in the Gulf and whatever, we are not 
going to have sustainability. We have to keep the ground where 
it is, you have to keep the rain where it falls in order to 
have sustainability and good production agriculture.
    The Chairman. Well put. If I did not know better, I would 
think you were a constituent of the 3rd District of Oklahoma.
    I now turn to the outstanding--my time has expired--to the 
gentleman from Iowa for his 5 minutes. Mr. Boswell.
    Mr. Boswell. Well, thank you, Mr. Chairman. It has been an 
interesting presentation. Thank you all very, very much. I told 
the Chairman I would give up some of my time to continue that 
last question about conservation compliance and so on. So you 
may want to comment about that.
    But I think that is an interesting point there, Ms. Weber, 
and I appreciate you coming here representing, seems to me like 
reading your statement, all aspects of agriculture really, not 
just one--specialty crops and production farms and so on at 
your family operation.
    Kind of brings out the point we may have said earlier, I 
have said so often, we are not making more land, we are just 
making a lot more people and how are we going to take care of 
that as we go down the road. And I think you are kind of 
thinking about that apparently from what you have said.
    I go back to you, Mr. Howell, you talk about your family 
operation and so on and wanting to take some of your program 
land out to put it in specialty crop. We have not had a lot of 
discussion about that, but I have a feeling that quite a few 
Members of our Committee would probably object to that, but I 
do not know that, we have not talked about it I do not think, 
have we, Mr. Chairman, at all? So this is an interesting point.
    It seems to me like if I go back to my days when we were 
starting farmers' markets and so on, that this was one way to 
get people to grow specialty crops. They were not going to have 
somebody like me at that time, it was about all I could do, 
capable of doing, to row crop. But a lot of people said well, I 
think I will set this 20 acres aside and use my equipment and I 
will just produce a whole lot of onions or a whole lot of this 
or a whole lot of that. Kind of got that situation stated. So 
we may have a whole new discussion going on here, I do not 
know.
    You have been raising tomatoes a long time and you make 
your point: how do we not go back, we are bumping heads again, 
Mr. Chairman, where we have people wanting to do different 
types--what I have said, there is room for everybody because of 
the population growth and need for food. How do we do that?
    Mr. Howell. Well, it was not an issue until the 2002 Farm 
Bill, when they made soybeans one of the program crops. Before 
that, we used the soybean ground and we were free to use that 
for production of vegetables. When they changed that and added 
that in as a program crop, that is when it went out of hand. So 
it is not really--it is a relatively current short-term 
problem, but it needs to be rectified.
    Mr. Boswell. Let us just dialogue for a minute, maybe it is 
a short-term problem and it will solve itself, I do not know. 
It is interesting, I guess we may hear more about it if this is 
indicative of what we will hear in other places. But you know, 
the farmers' markets have become a very successful thing, and 
to start out it was just seasonal and now a lot of places it is 
year round. And I am not sure how they get the produce there in 
all cases, but nevertheless, it is very, very popular. People 
want it, obviously. And then we see what the market is for 
corn, beans, wheat and so on. There does not seem to be any 
problem there, particularly as we have some of it going into 
fuels, alternatives, and that nature. I am just not sure how we 
get there without destroying something that I think across the 
country they are pretty proud of, and that is people that are 
going out and doing the fruits and vegetables and bringing it 
to town and selling it fresh on the farmers' market.
    Mr. Howell. I have to apologize, I am not sure I understand 
exactly where you are going. If you are thinking I am against 
my colleague to the left----
    Mr. Boswell. I am not sure either.
    Mr. Howell.--I would like to have that part eliminated for 
both the fresh and the processing and I think that would be 
fine. And my suggestion is if you take direct payments away, 
why there is really no incentive, in my view, to keep that 
restriction on. Again, it just happened in the 2002 Farm Bill 
when they did that.
    Mr. Boswell. Ms. Weber, would you care to make any comment 
in this discussion?
    Ms. Weber. Basically, for specialty crop producers--let me 
take for an example a muscatine grower in Iowa that produces 
watermelons. They need a 10 year change on the crop. I mean 
with most of things we grow, there is maybe a 3 year rotation. 
So you have to have other acreage to rotate it with. So they 
are renting other people's property and like he is saying, 
without the soybean ground to rotate to, if that was not clear, 
he did not have that ground to rotate to any more because that 
was part of the program. Is it that it?
    Mr. Howell. Well, that is part of it. We have to be 
responsible growers, we have to rotate our crops and so we have 
to have 3 years out before we can grow a tomato crop. And so we 
need--I am not sure where the discussion is going again, but we 
need to have that extra ground to--soybeans and corn in a way, 
even though we raise a lot of them, are a vehicle to allow us 
to raise the corn and soybeans and then when you penalize the 
landowners for letting us grow those vegetable crops, nobody is 
going to win.
    Mr. Boswell. I yield back.
    The Chairman. The gentleman yields back. And I would note, 
if you listen to my friends on both the left and the right, the 
direct payment issue may take care of itself soon.
    With that, I recognize the gentleman from Texas for 5 
minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Davis, I appreciate your opening comments reflective of 
what a food shortage would look like, because most Americans 
take it for absolute granted that--well first off, most 
Americans think food just shows up at the grocery store by 
magic. They do not appreciate the hard work and sweat equity 
and the risks that you and your colleagues on the panel and I 
suspect most folks in this room, take every day and every year. 
There is this reliance that you put on a rational, fully 
resourced safety net working constantly in terms of trying to 
figure out what the best one is and it is in a constant state 
of flux.
    Previous hearings, we have had people talk about farm 
labor, we talked a little bit about child labor, but farm labor 
in general. None of you mentioned that in your testimony. Are 
you adequately, have a workforce that is adequate to meet your 
needs, and that is not an issue in your area? Any of you?
    Mr. Davis. Myself, with my family operation, both my 
children are becoming involved with the operation. My son has 
grown up on the farm and is now home today taking care of 
things while I am here with you.
    I think we need, for continuation of development of ability 
to create something, we need that early training program. We 
send our children to school when they are 5 and 6 and 4 even 
but now we are saying that a child cannot learn how to work 
until they are 16 or 18.
    Mr. Conaway. I guess I was asking comments for adults, 
maybe the specialty crop guys, Mr. Howell and Ms. Weber, do you 
have an adequate workforce to harvest your crops at the right 
points in time?
    Mr. Howell. No, sir. I think that is a problem with all of 
agriculture, if you really look under the covers. If you think 
about the seed industry where detasseling is done, if you think 
about the meat processing area where there is need for workers, 
livestock producers in the confinement facilities. There is a 
bad shortage, significant shortage and growing shortage of 
people able and willing to do the work. And I know it is not 
you gentlemen's responsibility in this Committee, but the whole 
issue of the undocumented workers and the immigration policies 
is really presenting a problem particularly for the 
horticulture, but across the board. And it is a train wreck 
getting ready to happen. Everybody wants to play by the rules 
and we do play by the rules, but there is a problem that we 
just need to face up to and provide us with an adequate supply 
of documented labor one way or another through a program that 
will let us harvest the crops. In the southern states, Georgia 
and those areas, and the Arizona issues, there are problems on 
both sides. But agriculture is running out of hand labor.
    Mr. Conaway. Can anybody give us an example of where--the 
regulatory burden that you have to cope with. We can all talk 
about regulations, but specific regulations that you are having 
to deal with that are either new and/or antiquated that cost 
you money and can you give us some specificity with respect to 
those regulations that you think are no longer necessary or 
were not necessary to begin with?
    Mr. Davis. Regulations, one that comes to mind, I 
understand that the Secretary has taken this under advisement 
to make a change right now, but something as simple as a cover 
crop on cropland. That if I do not plant a program crop to that 
cropland as its first crop, it becomes ineligible for program 
payments. So if I was to seed a rye grass crop on a cornfield 
and when I went into my FSA office to sign up for a farm 
program, that I would state that I have it seeded to rye now as 
a cover crop, that becomes my crop acreage for that year. Also, 
vegetables are ineligible, there are cover crops in turnips and 
radishes right now that are very beneficial to the ground, 
great reduction in the necessity of tillage, but because those 
crops are planted, it technically makes those crops ineligible 
for farm program payments, just based on the rules. So that is 
one regulation.
    Another regulation that does come into play that I and my 
family, we work closely with my in-laws, I am allowed to have 
my children operate machinery on my farm, but I cannot have my 
nephew come onto my farm and operate the same machine, even 
though he has the same experience, because we do not have the 
same relationship.
    Another area that has come into mind of regulations, 
workmen's comp back on the farm has become a serious 
consideration for me if I bring in outside labor. That is more 
of a state issue with the Illinois workmen's comp law, but that 
is another regulation that is coming.
    And also, additionally--we could go on and on--but spraying 
of farm pesticides looks to be an issue that is coming to a 
head here very shortly that will restrict me.
    Mr. Conaway. Thanks.
    It would be interesting, Mr. Chairman, if we could find who 
in the Department of Labor actually wrote the farm labor laws, 
rules and regulations, to see if they have ever even been on a 
farm or could spell farm.
    (Laughter.]
    Mr. Conaway. Thank you, Mr. Chairman, I yield back.
    The Chairman. The gentleman's time has expired.
    The chair now recognizes the gentleman from Illinois, Mr. 
Hultgren for 5 minutes, please.
    Mr. Hultgren. Thanks again, Mr. Chairman.
    I mentioned a little bit earlier just the gratitude that I 
have had of working with our Senators, I mentioned a couple 
people from Senator Kirk's office. Also, it has been a 
privilege to work with Senator Durbin's office. I also wanted 
to recognize I think Brad Middleton and also Bart Ellefritz are 
here from Senator Durbin's office. So thank you so much. Also 
glad that our acting Director of Agriculture, a good friend of 
mine, former colleague in the Illinois House, Bob Flider is 
also here as well, so thank you so much for being here today, 
and all your work.
    Again, I want to thank the panel for your information, it 
has been very helpful.
    A few questions. Mr. Williams, I wondered if you could--you 
have expressed in your testimony frustration over both the SURE 
and the ACRE programs. I wondered if you would be able to 
elaborate a little bit on these issues and speak to how you 
might recommend that we could simplify these and make them more 
beneficial, more useful.
    Mr. Williams. With the ACRE program, as I understand it, 
back--and I also alluded to the fact that I remember back in 
the 1980s when the prices were very low, the ACRE program would 
have worked very well. But we have been blessed to have more 
exports so our prices have risen higher, the ACRE program just 
was not feasible, it did not pay the producer.
    My experience with the SURE program, we have been paid 
throughout that. Whenever you get a yield loss and you draw 
crop insurance revenue from we will say 2008 crop year, then 
you will come back in 2009 and receive payment through SURE the 
following year. In my personal case, we farm in two counties, 
we did have a SURE loss in Hamilton County, but the crop was so 
great in White County that it kicked out the Hamilton County 
loss that was ineligible. To me--a lot of our landlords carry 
crop insurance as well and so because we were blessed to have a 
great crop in one county, but we were unfortunate in another 
county, the county that had the loss, we should have received 
the payment on that. And to me, that does not seem right. I 
realize the average was there and for us farming in both 
counties, we were all right. But the landlords were penalized 
because of our success in the other county. So to me, that was 
not very fair or equitable.
    Mr. Hultgren. Thank you.
    Mr. Asay, you spoke about the importance of developing a 
disease surveillance system and the work that the pork industry 
has done in conjunction with USDA's APHIS and also Centers for 
Disease Control. I wonder if you might be able to talk a little 
bit about the Comprehensive and Integrated Surveillance System 
and give us an update on your progress on that.
    Mr. Asay. We are working to try to update the system. There 
is a lot of work that has been done in the event a foreign 
animal disease does come to this country, as to what agencies 
have jurisdiction over various aspects. At one point, it was 
thought that we would destroy the animals and then bury those 
animals to try to control disease, but we have seen in other 
countries that has not worked--England and South Korea, for 
example. If we were to bury animals, we would have to get okay 
from the EPA at those sites, that those sites could handle 
that. So now it looks like we have to vaccinate and control 
with vaccine the disease. First off, you would have to have 
enough vaccine for that disease on hand to control that. And 
also you would have to live with the disease for a number of 
years in order to get it under control again.
    But we are working, trying to get all the agencies to work 
together and I believe right now, the first agency that would 
have control would be the Department of Homeland Security to 
make sure it was not a terrorist act. And after they ensure 
that, then it goes on to the next one. So there are a lot of 
steps involved, a lot of agencies involved, a very complicated 
matter.
    Mr. Hultgren. I wonder if you could give us an update on 
the pilot program USDA has been running with hog producers 
called the Livestock Gross Margin, LGM.
    Mr. Asay. Okay. Actually there was a pilot program created 
in Iowa a few years ago, in 2008 it expanded to some other 
states and last year it just expanded to the 48 continental 
states. It was set up--it is a program that uses futures prices 
to set the expected margins and uses the price of the hogs 
minus the cost of the feed with various formulas, and ensures 
that margin there. That is the concept, and it works for 
producers at times. It has helped in the management but there 
is a lot of cost involved in this and we would like to see some 
changes where it can insure larger operations and, as I 
mentioned, there were 200,000 hogs insured in the past year. I 
personally worked with producers to sell about 10 to 15 percent 
of that insurance. It has been a struggle working with agencies 
sometimes to try to clarify things also on this product.
    Mr. Hultgren. My time has expired. I did just want to 
mention real quickly, Mr. Howell, I appreciate your information 
and discussion on the Farming Flexibility Act of 2011, 2012, 
H.R. 2675. I know I am a cosponsor along with Congressman 
Schilling and Congressman Johnson here from Illinois, and I 
know that would be something very beneficial to Midwestern 
farmers and Midwestern families.
    So my time is up, but thank you so much for the discussion. 
We certainly will be talking about that some more.
    Mr. Asay. Well, thank you for your help.
    Mr. Hultgren. I yield back.
    The Chairman. The gentleman's time has expired.
    The chair now recognizes for the final 5 minutes of 
questions, the gentleman from Illinois, Mr. Schilling.
    Mr. Schilling. Thank you, Mr. Chairman.
    What I would also like to point out is that what is nice 
about the Agriculture Committee is that this is truly a red, 
white, and blue Committee, it is not Democratic or Republican. 
And also, a good friend of ours, Lieutenant Governor Simon has 
a couple of her folks here, Christina Rogers and Laura Kissell, 
we appreciate them being here today also.
    I want to go back to Gary, your comment here on a question 
that Mr. Hultgren was asking. Do you have some suggestions on 
how Congress can strengthen the Livestock Gross Margin 
insurance?
    Mr. Asay. Okay, there are various aspects there. I just 
recently learned that the loss ratio on the LGM has been in the 
neighborhood of .33 to .37. There were some changes this year 
in the crop insurance program to try to get corn and soybeans 
closer to the 1.00 loss ratio. If we can somehow get that loss 
ratio improved, that would improve the aspects of the producer 
making that work for them to actually better protect them for 
the premium invested in that.
    Also, one other aspect: This insurance is only available on 
the last Friday, business Friday, every month from 
approximately 4:30 p.m. until 8:00 p.m., the following 
Saturday. Not many crop insurance agents or producers want to 
mess with trying to figure out the margin and the premium on 
the weekend. That has been a limiting factor also.
    Mr. Schilling. Very good.
    And then can you further tell the story of conservation and 
its part of your operation? Can you basically elaborate further 
on how programs such as EQIP can be strengthened for us?
    Mr. Asay. Yes. I have benefitted from EQIP funds in the 
past, it has helped me invest in manure-hauling equipment. The 
manure spreader that I use has a controller on it and a monitor 
where I can control how much manure, how many gallons go on per 
acre. I also test the soil and the manure for an analysis and 
use the crop usage to determine how much manure I apply. It has 
also helped me with windbreaks on the farm to try to protect 
the wind from blowing through. Also for manure containment 
facilities. I think it is a very good program out there and we 
possibly need to look in some areas to expand a little bit to 
better help livestock producers.
    Mr. Schilling. Very good.
    And then, Mr. Davis, recently, there was a nice article in 
the Galesburg Register-Mail where a local farmer, David Serven, 
who actually is here today, said ``Crop insurance to me is the 
safety net we need to keep there.'' I am hearing this from the 
majority of farmers that I talk to.
    My time is almost up, but what are your thoughts on 
strengthening crop insurance here in Illinois, sir?
    Mr. Davis. The thoughts of Mr. Asay there on the 
realignment of the loss ratio I think would be very beneficial 
to crop insurance usage here in Illinois. My county and my own 
instance, my loss ratio is .25. If 1.0 is loss equals payback 
for the premium I am paying, I am paying substantially more for 
my insurance than I ever hope to be able to get back because I 
do have a low loss. So if that could be addressed.
    Another area is if, as I heard mentioned here just a moment 
ago, that direct payments might be curtailed in some way, 
shape, or form, there does need to be a safety net somewhere 
and if this crop insurance program is an area where we could 
regain that footing to put in that floor for support, the most 
important thing is that crop gets raised next year, not the 
crop you are raising this year that is lost, but raising that 
crop next year.
    Mr. Schilling. Very good.
    With that, I yield back my time, Chairman.
    The Chairman. The gentleman yields back his time. The time 
has expired for this panel.
    Before we adjourn, I would like to invite Mr. Boswell, 
followed by Mr. Schilling, to make any closing comments or 
remarks that they might have. Mr. Boswell.
    Mr. Boswell. Well, thank you, Mr. Chairman. I kind of 
measure how did I think things go on if I had what I know right 
now, would I have come to this meeting. Yes, I would.
    It has been good to be here in Galesburg and Carl Sandburg 
College. I want to thank all of you for participating today and 
it has been meaningful. I think our staff has got a lot of 
notes we are going to have to digest but it has been worth 
coming here and, Mr. Chairman, I want to thank you for this and 
Mr. Schilling for being our host, I appreciate it. Thank you 
very much.
    The Chairman. The gentleman yields back and I now recognize 
our host, Congressman Schilling, for any closing remarks he 
might have.
    Mr. Schilling. Yes, I truly want to thank you, Mr. 
Chairman, for just recognizing the great Midwest for who we 
are, and just giving us the opportunity to have what I call the 
final 3 feet, the farmer to actually have their say. I think 
one of the most important things that we look at is from the 
Midwest and across the country when it comes to ag is that we 
want the farmers to have the input. We do not want folks that 
have really nothing to do with farming making the decisions on 
how the farm bill is going to come out.
    And I think the biggest take-away that I got today out of 
this is that, number one, we need a 5 year bill so that we can 
give certainty to our farmers and allow them to just know what 
cards are on the table and then, number two, I think of course 
is the strong crop insurance.
    But I just want to thank everyone who participated, the 
folks that set up, also the Agriculture Committee, the folks 
from Washington that took time out to be with us today. But 
just want to say thank you very much, everyone.
    The Chairman. The gentleman yields back his time and I 
would recognize myself to note that I appreciate not only 
Congressman Schilling, but both of your Illinois Members, for 
the good work that they do on the Committee. And of course, our 
friends at Carl Sandburg College for hosting and helping work 
with us to make this possible, and the community for turning 
out today to listen to what some folks outside of rural America 
consider to be the least exciting topic, but yet it is the most 
important subject matter for all of our futures and all of our 
children's futures.
    And with that again, let me state one more time for the 
record, that anyone may submit comments to be considered as a 
part of the Committee's farm bill field hearing record, this 
will be a part of the permanent record. Comments submitted to 
the address agriculture.house.gov/farmbill by May 20, 2012 will 
be incorporated in a permanent part of the record. It is 
important that we have not just our expert witnesses today, but 
everyone out there who is interested put their stake into this 
process.
    With that, I would also note that we, working as a 
Committee together, have a very challenging process ahead of 
us. We intend to get you a farm bill that we can all support, 
that you can live with, that maybe you will not just survive 
but have a chance to thrive with. But it is going to be a 
challenging process. It is going to be a very challenging 
process.
    And with that, under the rules of the Committee, the record 
of today's hearing will remain open for 30 calendar days to 
receive additional material and supplemental written responses 
from the witnesses to any question posed by a Member.
    This hearing of the Committee on Agriculture is adjourned.
    [Whereupon, at 11:25 a.m. (CDT), the Committee was 
adjourned.]


   THE FUTURE OF U.S. FARM POLICY: FORMULATION OF THE 2012 FARM BILL

                              ----------                              


                         FRIDAY, MARCH 30, 2012

                          House of Representatives,
                                  Committee on Agriculture,
                                              State University, AR.
    The Committee met, pursuant to call, at 9:00 a.m. (CDT), in 
the Riceland Hall, Arkansas State University, 201 Olympic 
Drive, State University, Arkansas, Hon. Frank D. Lucas 
[Chairman of the Committee] presiding.
    Members present: Representatives Lucas, Neugebauer, 
Stutzman, and Crawford.
    Staff present: Bart Fischer, Josh Mathis, Matt Schertz, 
Debbie Smith, Heather Vaughan, John Konya, Nathaniel Fretz, 
Anne Simmons, and Jamie Mitchell

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    The Chairman. This hearing of the Committee on Agriculture 
entitled, The Future of U.S. Farm Policy: Formulation of the 
2012 Farm Bill, will come to order.
    Good morning, and thank you all for joining us today for 
this farm bill field hearing--which is a very important 
distinction, I might add. And I would like to thank Congressman 
Crawford for hosting us today.
    These field hearings are a continuation of what my good 
friend and Ranking Member Collin Peterson started in the spring 
of 2010. Today, we will build upon the information we gathered 
in those hearings, as well as the 11 farm policy audits we 
conducted this past summer. We used those audits as an 
opportunity to thoroughly evaluate farm programs to identify 
areas where we can improve efficiency. The field hearings serve 
a slightly different purpose. Today, we are here to listen.
    I talk to producers all the time back home in Oklahoma. I 
see them in the feed store, I meet with them at my town hall 
meetings and, of course, I get regular updates from my personal 
boss, Linda Lucas, back on the farm. But the conditions and 
crops in Oklahoma are different than what you will find here in 
Arkansas.
    In New York, we heard how specialty crop producers and 
dairy producers utilize farm programs. In Illinois, we heard 
about the importance of crop insurance for corn and soybean 
producers. Today, we will hear from a wide variety of producers 
from across the Southeast. I expect we will hear a different 
perspective than we got in the Northeast and the Midwest. That 
is why it is so important that we offer a choice of policy 
options. The broad range of agricultural production makes our 
country strong, but it also creates challenges when we are 
trying to write a single farm bill to support so many different 
regions and commodities.
    While each sector has unique concerns when it comes to farm 
policy, I would like to share some of my general goals for the 
next farm bill. First and foremost, I want to give producers 
the tools to help you do what you do best and that is produce 
the safest, most abundant, most affordable food supply in the 
world. To do this, we must develop a farm bill that works for 
all regions and all commodities.
    I recognize that the challenges that you face here in the 
Southeast are different than the conditions facing producers in 
Illinois or New York. I also recognize that even within 
commodities, different programs work better for different 
regions. That is why it is vitally important that the commodity 
title give producers options so they can choose the program 
that best works for them.
    I am also committed to a strong crop insurance program. Now 
I know that crop insurance, while a valuable tool for many 
producers, does not work as well for producers down here. That 
is why offering an array of programs is important and why we 
must work with the Risk Management Agency to improve crop 
insurance products for rice, peanuts and other crops that do 
not have higher buyout levels.
    Last, we will work to ensure that producers can continue 
using conservation programs to protect natural resources. I am 
interested to hear how producers in this area of the country 
use the conservation programs. I am particularly curious as to 
your thoughts about how to simplify the process so they are 
easier for farmers and ranchers to use.
    Beyond those priorities, I know there are a number of 
universal concerns facing agriculture across the country. For 
instance, my producers in Oklahoma are worried about 
regulations coming down from the Environmental Protection 
Agency and how they must comply with those regulations. I am 
also aware that the death tax is creating difficulties for 
farming operations. I want to hear how these Federal policies 
are affecting producers here.
    Today, we will hear from a selection of producers. 
Unfortunately, we do not have time to hear from everyone who 
would like to share their perspective. But we have a place on 
our website where you can submit those comments in writing to 
be added to the record. You can visit agriculture.house.gov/
farmbill, to find that form. And you can also find an address 
on the postcards available on the tables that are here.
    As I said before, we do not have an easy road ahead of us, 
but I am confident that by working together, we can craft a 
farm bill that continues to support the success story that is 
American agriculture.
    And with that, I would like to recognize our host for any 
opening comments he might make. The gentleman from Arkansas, 
Mr. Crawford.

    OPENING STATEMENT OF HON. ERIC A. ``RICK'' CRAWFORD, A 
            REPRESENTATIVE IN CONGRESS FROM ARKANSAS

    Mr. Crawford. I thank the Chairman.
    I want to start by acknowledging our FFA chapters that are 
here, and if I could get them to stand. The chapters that we 
have checked in are Batesville, Weiner, Harrisburg and Manila. 
Thank y'all. This is the future of agriculture.
    [Applause.]
    Mr. Crawford. Thank you for being here, good morning, and 
thank all of you for joining us. We are pleased to have this 
third of four farm bill hearings here in Arkansas. Great honor 
to be here and we are very thankful to our Committee Chairman 
and to the Members who have taken time to come and 
participate--Congressman Neugebauer from Texas and Congressman 
Stutzman from Indiana, all of whom are my colleagues on the 
Agriculture Committee.
    As we know, agriculture is the number one industry in our 
district here in the First District of Arkansas--from the 
Delta, cotton, rice, soybeans, wheat, peanuts and aquaculture, 
and up into the Ozarks, poultry, cattle, dairy, timber 
products. Annually, agriculture in Arkansas is a $16 billion 
economic juggernaut, employing over 260,000 Arkansans. And like 
every industry, Arkansas agriculture comes with a fair share of 
risk and uncertainty.
    In these tough economic times, farmers and ranchers know 
the impact of high fuel prices as an input cost. When fuel 
costs rise, farmers feel the pinch more than most. Farmers also 
deal with uncertainty caused by unpredictable weather, volatile 
markets and a continued need for investments in technology. On 
top of all those challenges, farmers are constantly wrestling 
with a myriad of regulations coming from Washington and no 
agency embodies that better than the Environmental Protection 
Agency. Farmers in our district live off the land, they raise 
their families and earn an honest living by taking care of our 
natural resources. If anyone understands the importance of 
preserving our environment for future generations, it is 
certainly those who derive their livelihood from the land on 
which they live, and from the water that they use.
    With all the challenges our agriculture community already 
faces, they should not have to worry about burdensome new 
regulations that only serve to cripple American agriculture. 
Sound farm policy must incorporate all the tools that America's 
farmers and ranchers need to continue to produce the world's 
safest, most abundant and affordable food supply, and the 2012 
Farm Bill must take that into account. It also must take into 
account the diverse models of production throughout the United 
States. Unlike what some of my colleagues in Congress may 
think, there is no one-size-fits-all policy that will work. 
Agriculture here in Arkansas, and across the South, is vastly 
different than say Iowa or Illinois. And therefore, we need 
carefully crafted policy that accounts for the differences in 
cost, risk and production models. I know I am preaching to 
choir here and we are not here to do the talking, we are here 
to do the listening. So with that, I want to just really 
quickly acknowledge some of the witnesses that are from 
Arkansas and I am proud to represent them in Congress.
    I will start by welcoming Dow Brantley from England, 
Arkansas; Mississippi County producer Randy Veach; representing 
the cattle industry, cattle producer Dan Stewart from Mountain 
View, Arkansas; Mike Freeze is an aquaculture producer from 
Keo, Arkansas; and last but not least, a friend of mine, cotton 
farmer, also an ASU grad, David Hundley.
    We are pleased to welcome each of you. Thank all of you for 
being here, and we look forward to this hearing. With that, I 
yield back to the Chairman.
    The Chairman. The gentleman yields back.
    The chair would request that other Members submit their 
opening statements for the record so that the witnesses may 
begin their testimony and to ensure that there is ample time 
for questions.
    With that, I would like to welcome our first panel of 
witnesses to the table. Mr. L. Dow Brantley, rice, cotton, 
corn, and soybean producer, Brantley Farming Company, England, 
Arkansas; Mr. Randy Veach, cotton, rice, corn, wheat, and 
soybean producer, Manila, Arkansas; Mr. Paul T. Combs, rice, 
soybean, cotton, corn, and wheat producer, Sunrise Land 
Company, Kennett, Missouri; Mr. Bowen Flowers, cotton, corn, 
soybean, wheat, and rice producer, Clarksdale, Mississippi; and 
Mr. Burch, cotton and peanut producer, Burch Farms, Newton, 
Georgia. Clearly, gentlemen, you are a diverse bunch of 
producers.
    With that, Mr. Brantley, please begin whenever you are 
ready.

 STATEMENT OF L. DOW BRANTLEY, RICE, COTTON, CORN, AND SOYBEAN 
              PRODUCER, BRANTLEY FARMING COMPANY,
                          ENGLAND, AR

    Mr. Brantley. Chairman Lucas and Members of the Committee, 
I would like to welcome you again to the State of Arkansas; and 
Congressman Crawford, thank you for convincing the Chairman 
that Jonesboro was the place to hold this hearing. Thank you 
again for holding this hearing on the reauthorization of the 
farm bill. I am honored to have the opportunity to offer 
testimony before the Committee----
    The Chairman. Mr. Brantley, if you do not mind, swing that 
microphone towards you.
    Mr. Brantley. Is that better?
    I am honored to have the opportunity to offer testimony 
before the Committee concerning my views on current farm policy 
and the changes needed.
    My name is Dow Brantley. My farm is located in central 
Arkansas near the community of England. We grow rice, cotton, 
corn, soybeans and I farm in partnership with my father, 
mother, two brothers and our families. Due to the hard work of 
my grandparents and parents, our family farm has grown from 
just a few hundred acres in 1946 to around 8,500 acres in row 
crop production today. I am pleased to serve as Chairman of the 
Arkansas Rice Federation and the Arkansas Rice Producers' Group 
as well as a board member for many other agribusiness 
associations in the state, but I offer my testimony today from 
my perspective as a farmer, and not on behalf of any one 
organization.
    As I stated earlier, my farm is diversified, but rice is 
one of our primary focuses. It is worth noting that Arkansas 
grows rice on approximately 1.3 to 1.5 million acres each year, 
which is nearly \1/2\ of the entire U.S. rice crop. Rice 
product, transportation and processing play important roles in 
the state by providing thousands of jobs in what is referred to 
as the Mississippi River Delta. Rice is the state's second 
highest value commodity and the top agricultural export.
    The bigger challenges facing the U.S. rice industry are 
challenges over which farmers have no control. They are 
decisions taken by governments--our own Federal Government and 
the governments of nations around the world. Some examples 
include:
    Brazil's export program that provides $60 per ton export 
subsidy for rice to Central America, Haiti, Nigeria and to the 
U.S.
    Thailand's intervention price program is the equivalent of 
$10.00 per bushel, while the U.S. market price, here in the 
U.S., is around the $6.00 per bushel range.
    India, one of the world's top rice exporters, subsidizes 
the cost of fertilizer and other inputs for its farmers.
    Iraq's unreasonable import specifications have contributed 
to a 77 percent drop in sales of U.S. rice to that country.
    Access for U.S. rice was excluded from the so-called South 
Korea Free Trade Agreement because they consider it a sensitive 
crop.
    China has yet to accept imports of U.S. rice as a result of 
China's lack of phytosanitary requirements.
    And the U.S. Government continues an embargo that was put 
into place more than 50 years ago against trade with Cuba, once 
the number one export market for U.S. rice.
    These trade policies and the increased cost of inputs, 
especially fuel and fertilizer, over which the U.S. farmer has 
no control, cannot be covered by a one-size-fits-all program.
    The U.S. rice industry is seeking risk management tools 
that will allow rice farmers to secure their production loans 
and to repay loans should forces over which they have no 
control lead to an increase in input costs or decline in rice 
prices which makes U.S. rice less competitive.
    Not providing such a policy option threatens not only U.S. 
farmers who grow rice, but thousands of Americans who 
transport, process and market U.S. rice across the nation and 
around the world.
    Crop insurance as a whole has not worked on my farm or many 
others like ours in Arkansas. Our farm is 100 percent 
irrigated, and on average our yields are very consistent. Our 
financial problems occur with higher production costs due to 
irrigation or as a result of a weather event in the fall that 
disrupts our harvest and affects the quality of our crops. 
These circumstances cannot be hedged.
    I believe Congress should reauthorize the farm bill this 
year for at least 5 years.
    I understand that the budget situation facing this 
Committee is a key consideration in the development of the farm 
bill. These budget pressures, coupled with the outcome of the 
U.S.-Brazil WTO case means some farm policies must be modified 
to satisfy both budget constraints and specific trade 
objectives.
    Some key components of the farm bill should be maintaining 
planting flexibility that began with the 1996 Farm Bill and the 
countercyclical policies that have been in place for more than 
a decade now.
    Given the aforementioned budget pressures and other 
considerations facing Congress, I believe that the following 
priorities represent the needs of producers for crops here in 
the Mid-South:
    First, the trigger levels for assistance should be updated 
to provided tailored and reliable help should commodity prices 
decline below today's production cost and should include a 
floor or reference price to protect multi-year low price 
scenarios.
    Second, as payments would only be made in loss situations, 
payment limits and means tests for producers should be 
eliminated, or at a minimum not tightened any further.
    And third, the Federal Crop Insurance Program should be 
improved to be a more effective risk management for all crops 
in all production regions, beginning with the policy 
development process.
    We support the funding of our land-grant universities 
through the research title, particularly the formula funding 
like the Hatch and Smith-Lever Acts that enable our 
universities to deliver initiatives that are so important to 
our states.
    In summary, I appreciate the work of this Committee in 
crafting the 2008 Farm Bill, and more recently the 
recommendations developed last fall with your counterparts in 
the Senate. I know developing this next farm bill will present 
its own set of challenges, especially from inadequate budget 
authority and international trade obligations.
    Based on my experience in working with the rice and cotton 
industries and the Arkansas Farm Bureau, I know they will work 
closely with this Committee to ensure that we have an effective 
farm policy. It is critical that we maintain provisions that 
allow us to be competitive in world markets and provide support 
in these times of low prices.
    Thank you for the opportunity for me to present my views 
today.
    [The prepared statement of Mr. Brantley follows:]

Prepared Statement of L. Dow Brantley, Rice, Cotton, Corn, and Soybean 
            Producer, Brantley Farming Company, England, AR
Introduction
    Chairman Lucas, Ranking Member Peterson, and Members of the 
Committee, thank you for holding this important hearing on the re-
authorization of the farm bill. I am honored to have the opportunity to 
offer testimony before the Committee concerning my views on current 
farm policy and the changes needed.
    My name is Dow Brantley. My farm is located in central Arkansas 
near the community of England. We grow rice, cotton, corn, and 
soybeans. I farm in partnership with my father, mother, two brothers 
and our families. Due to the hard work of my grandparents and parents, 
our family farm has grown from just a few hundred acres in 1946 to 
around 8,500 acres in row crop production today. I am pleased to serve 
as the Chairman of the Arkansas Rice Federation and the Arkansas Rice 
Producers' Group, as well as a board member for many other agribusiness 
associations in the state, but I offer my testimony today from my 
perspective as a farmer, and not on behalf of any one organization.
Industry Overview
    As I stated earlier, my farm is diversified, but rice is one of our 
primary focuses. It is worth noting that Arkansas grows rice on 
approximately 1.3 to 1.5 million acres each year, which is nearly half 
of the entire U.S. rice crop. Rice production, transportation and 
processing play important roles in the state by providing thousands of 
jobs in what is referred to as the Mississippi River Delta. Rice is the 
state's second highest value commodity and the top agricultural export. 
Nationally, the U.S. rice industry contributes $34 billion in annual 
economic activity. It provides jobs and income for not only rice 
producers and processors, but also for all involved in the value chain, 
contributing 128,000 jobs.
    About 85 percent of all the rice that is consumed in the U.S. is 
produced domestically.
    Despite significant trade barriers to exports, the U.S. remains the 
largest non-Asian exporter of rice and the third largest exporter 
worldwide.
    Rice fields are flooded during the growing season to provide water 
that the plants need and to help control weeds. While drought during 
the growing season adds to the cost of maintaining the flood and 
certainly adds to the labor required to check irrigation pumps and keep 
levees intact, we do not lose a rice crop due to drought.
Global Challenges of U.S. Rice Industry
    The bigger challenges facing the U.S. rice industry are challenges 
over which rice farmers have no control. They are decisions taken by 
governments--our own Federal Government and the governments of nations 
around the world. Here are some examples:

    1. Brazil's PEP (Petrobras Environmental Program) program provides 
        a $60 per ton export subsidy for rice shipped to Central 
        America, Haiti, Nigeria and to the U.S. All are traditional 
        U.S. rice markets.

    2. Thailand's Intervention Price is buying rice from Thai farmers 
        at the equivalent of $10 per bushel. The U.S. market price is 
        in the $6.00 per bushel range. And U.S. rice faces Thai rice in 
        world markets every day.

    3. India, one of the world's top rice exporters, subsidizes the 
        cost of fertilizer and other inputs for its farmers.

    4. Iraq's recent tender specifies rice varieties grown in Thailand 
        and Vietnam, but not in the U.S. Thailand's unreasonable 
        demands have led to a 77 percent drop in sales of U.S. rice to 
        the country.

    5. South Korean negotiators, at the eleventh hour, demanded that 
        rice be excluded from the so-called Korea Free Trade Agreement 
        because they considered rice a ``sensitive crop.'' U.S. 
        negotiators agreed to the exclusion.

    6. China has yet to accept imports of U.S. rice as a result of 
        China's lack of phytosanitary requirements.

    7. Japan's desire to join the Trans Pacific Partnership has caused 
        the rice industry to question the impact of the TPP on rice 
        trade within that group of nations.

    8. There have been no recent country updates as required by the 
        WTO, which brings into question the level of engagement by the 
        Administration in enforcing the trade issue.

    9. While the U.S. has extended trade and travel status with Vietnam 
        and China, countries which were our enemies in the 1960s and 
        1970s, we have not restored normal travel and trade relations 
        with Cuba where the U.S. Government continues an embargo that 
        was put into place more than 50 years ago.

    The biggest risk to the U.S. rice industry is not crop failure, but 
our own government's trade policies and the trade policies of foreign 
governments, which are either condoned or ignored by our government. 
These trade polices and the increased costs of inputs, especially fuel 
and fertilizer, over which the U.S. rice farmer has no control, cannot 
be covered by a one size fits all farm policy.
    The U.S. rice industry is seeking risk management tools that will 
allow rice farmers to secure their production loans and to repay the 
loans should forces over which they have no control lead to an increase 
in input costs or a decline in rice prices which make U.S. rice less 
competitive.
    Not providing such a policy option threatens not only U.S. farmers 
who grow rice, but the thousands of Americans who transport, process 
and market U.S. rice across our nation and around the world.
2008 Farm Bill Review
    The 2008 Farm Bill continued the traditional mix of policies 
consisting of the non-recourse marketing loan, loan deficiency payment, 
and the direct and countercyclical payment. While the countercyclical 
payment and marketing loan have been helpful in the past, they have 
recently been overwhelmed by the cost of production. If crop prices 
drop sharply most producers, including myself, will be in dire 
financial straits by the time these policies make payments. However, 
the marketing loan also plays a key role in the orderly marketing of 
crops for both producers and our marketing cooperatives, especially for 
rice and cotton. This policy should be continued without being 
encumbered by limitations on how much of a commodity a producer can 
place under loan. The direct payment, whatever its imperfections, has 
assisted rice producers in meeting the ongoing and serious price risk 
of farming in today's environment. It is a bit ironic that the Federal 
Government has been sending signals to the agriculture community that 
we should shift our policies towards those that are green box and WTO 
friendly, such as direct payments. The rice industry heeded those 
instructions in previous farm bills, and we, more than any other 
commodity, will be severely impacted by the loss of the direct payment 
unless Congress works with us to find a workable policy solution.
    The new policies created in the 2008 Farm Bill included the 
addition of Average Crop Revenue Election (ACRE) as an alternative to 
countercyclical payments for producers who agree to a reduction in 
direct payments and marketing loan benefits. The bill also added 
Supplemental Revenue Assurance (SURE) as a standing disaster assistance 
supplement to Federal crop insurance.
    The support mechanisms within ACRE do not provide an adequate farm 
policy for rice farmers or others in the Mid-South when compared to the 
DCP program. As evidence by the lack of sign ups, ACRE has not proven 
to be a viable alternative for Southern agriculture. In my home county, 
we have 1,650 producers, and not one has elected to choose ACRE. I 
understand that only one producer in the entire state of Arkansas has 
enrolled 20 acres in ACRE. Specifically, in the first year of ACRE 
signup, only eight rice farms, representing less than 900 acres, were 
enrolled nationwide. A one-size-fits-all policy will not work, but a 
regional or crop-based policy could provide the assurance that rice 
farmers will be able to endure the challenges they face.
    SURE has provided little, if any, assistance to row crop producers, 
including those producers in the Mid-South who suffered significant 
monetary losses due to heavy rains and flooding occurring prior to and 
during harvest and spring flooding.
    I recognize the challenge facing Congress to make improvements in 
this program. Without increased baseline spending authority, there will 
be no funds to continue the policy in the next farm bill much less make 
the necessary improvements for it to be an effective disaster relief 
mechanism. However, I do not support reallocating existing spending 
authority from current farm policy to apply to SURE.
Crop Insurance
    Crop insurance, as a whole, hasn't worked on our farm or many 
others like ours in Arkansas. Our farm is 100 percent irrigated, and on 
average, our yields are very consistent. Our financial problems occur 
with higher production costs due to irrigation or as the result of a 
weather event in the fall that disrupts our harvest and affects the 
quality of our crops. These circumstances can't be hedged.
Conservation
    My family has participated in several conservation initiatives over 
the years. Initiatives such as the Environmental Quality Incentives 
Program (EQIP), Wetlands Reserve Program (WRP), and Conservation 
Reserve Program (CRP) have helped us conserve our natural resources and 
become better stewards of the land. Conservation initiatives such as 
the Conservation Stewardship Program (CSP) can lead to improved 
environmental and conservation practices, however I believe that this 
program is not succeeding in the way it could. Of all the conservation 
initiatives offered by USDA, the CSP might have the most potential in 
terms of producing the desired environmental results that are 
beneficial to both the environment and the farmer. This initiative is a 
win-win for everyone, but it has been vastly under-funded. The CSP has 
been hampered by overly restrictive payment limitations contrived by 
USDA regulators, and I do not believe the statute supports the 
restrictions. Because the CSP regulations limit payments to an 
``agricultural operation'' and because the payment limits are so low, 
most farmers do not have the opportunity to enroll all of their land, 
even if their land would otherwise be eligible. In order to enroll more 
land in CSP, a producer is required to have more than one agricultural 
operation. This is a very costly and inefficient way for a producer to 
operate (e.g., multiple loans, multiple operating accounts, multiple 
sets of operating records, etc.). Again, this probably has something to 
do with the level of funding, but it would seem to me that an 
initiative that produces benefits for both the environment and the 
producer would warrant more funding. With that being said, conservation 
initiatives should not serve as the primary delivery mechanism for farm 
policy and should not come at the expense of our farm policies.
Payment Limitations/Means Testing
    The 2008 Farm Bill also made very substantial changes to the 
payment eligibility provisions, establishing an adjusted gross income 
(AGI) means test and, a very significant tightening of ``actively 
engaged'' requirements for eligibility. In my opinion, the USDA over-
stepped the intent of Congress in key payment eligibility provisions 
and issued regulations that are overly complicated and restrictive.
    These changes have not only been expensive, but they have required 
our farm to make changes in our day-to-day operations that do not make 
good business sense. FSA's financing rules, active personal management 
rules and the decision by USDA to allow FSA and NRCS to operate under 
different actively engaged rules, are a few examples of the problems 
that we are facing. Sound farm policy provisions are of little value if 
commercial-size family farming operations are ineligible for benefits. 
While I oppose any artificial payment limitations, I advocate 
administering the current provisions within the intent of Congress and 
strongly oppose any further restrictions.
2012 Farm Bill
    I believe Congress should reauthorize the farm bill this year.
    I understand that the budget situation facing this Committee is a 
key consideration in the development of the farm bill. These budget 
pressures, coupled with the outcome of the U.S.-Brazil WTO case means 
some farm policies must be modified to satisfy both budget constraints 
and specific trade objectives.
    Some key components of the farm bill should be maintaining planting 
flexibility that began with the 1996 Farm Bill and the countercyclical 
policies that have been in place for more than a decade now.
    Given the aforementioned budget pressures and other considerations 
facing Congress, I believe that the following priorities represent the 
needs of producers for crops here in the Mid-South:

  <bullet> First, the trigger levels for assistance should be updated 
        to provide tailored and reliable help should commodity prices 
        decline below today's production costs, and should include a 
        floor or reference price to protect in multi-year low price 
        scenarios.

  <bullet> Second, as payments would only be made in loss situations, 
        payment limits and means tests for producers should be 
        eliminated, or at a minimum not tightened any further.

  <bullet> Third, Federal crop insurance should be improved to provide 
        more effective risk management for all crops in all production 
        regions, beginning with the policy development process.
Price Protection is Key
    The development of farm policy should be focused on providing 
producers with price protection, not just for price moves during the 
growing year, but for multiple years of price declines as we saw occur 
in the late 1990's. Those that hold out crop insurance as the 
centerpiece of farm policy certainly don't understand the nature of 
farming in my area. Crop insurance can't, and it was not designed to, 
provide price protection across multiple years. Adequate price 
protection is the most critical component of the next farm bill and 
must be included in any policy option.
    The first priority should be to concentrate on increasing the 
prices or revenue levels at which farm policy would trigger so that it 
is actually meaningful to producers, and would reliably trigger should 
prices decline sharply.
    The reference price for rice should be increased to $13.98/cwt 
($6.30/bu). This level would more closely reflect the significant 
increases in production costs for rice on my farm. And this reference 
price should be a component of both the price-based option and the 
revenue-based option to ensure downside price protection.
    The existing price trigger levels have simply not kept pace with 
the significant increases in production costs. It is for this reason 
that I believe strengthening U.S. farm policy would be helpful in 
ensuring that producers have the ability to adequately manage their 
risks and access needed credit.
Options for Different Production Regions
    I believe that farm policy must be designed to give producers 
options of what policy will work best for a farmer based on our mix of 
crops and our growing region. I consider my farm to be rather 
diversified, growing four of the major program crops. We are fortunate 
to farm in an area where we have the ability to rotate among several 
crops. Not all production regions have that ability and may be limited 
to just one or two crops that can be profitably produced. Because of 
this great diversity across American agriculture we need policy options 
that I can use to tailor the best risk management tools possible on my 
farm.
    Using rice as an example, here in the Mid-South I can rotate up to 
three other crops with my rice, whereas rice producers on the Gulf 
Coast have in most cases only one other crop rotation option, and yet 
in California rice producers have in most cases only one cropping 
choice, rice. Due to a host of differences in market prices, production 
costs, yields, marketing patterns, and uses, there is the potential for 
a properly designed revenue-based policy to work for rice growers in 
California, while I know that for my rice enterprise here in Arkansas I 
need a price-based policy. But I would like the opportunity to evaluate 
both price-based and revenue-based options for my other crops to see 
which will best fit my situation. Each crop has very different pricing 
and marketing options.
Plain and Bankable Policies
    The current SURE has too many factors and is not tailored to the 
multiple business risks producers face--it is not plain. The current 
ACRE, while offering improved revenue-based protection, is complicated 
by requiring two loss triggers; providing payments nearly 2 years after 
a loss; and provides no minimum price protection--it is not bankable. 
The marketing loan and target prices are plain and bankable--
unfortunately the trigger prices are no longer relevant to current 
costs and prices.
Planting Flexibility
    Any commodity specific farm policy that is tied to planted acres 
must be designed with care so as to not create payment scenarios that 
incentivize farmers to plant for a farm policy. Whatever is done should 
accommodate history and economics and allow for proportional reductions 
to the baseline among commodities. Some commodities are currently more 
reliant on countercyclical farm policies (ACRE/CCP) while others are 
receiving only Direct Payments in the baseline. Generally, the least 
disruptive and fairest way to achieve savings across commodities would 
be to apply a percentage reduction to each commodity baseline and 
restructure any new policy within the reduced baseline amounts.
    There have been concerns raised about higher reference prices 
distorting planting decisions and resulting in significant acreage 
shifts, including for rice. Based on my understanding of the reference 
price levels included in the Agriculture Committees' package last fall, 
a reference price for rice of $13.98/cwt that is paid on historic CCP 
payment yields and on 85% of planted acres results in a effective price 
level well below my average cost of production, so I find it hard to 
imagine why I would plant simply due to this policy given these levels. 
As I have noted earlier, we have a very diverse cropping mix, and my 
planting decisions are based on a number of economic, agronomic, and 
marketing factors, but farm policy that sets support levels below costs 
of production is not a factor in planting decisions.
Research
    We support the funding for our land-grant universities through the 
research title, particularly the formula funding like the Hatch and 
Smith-Lever that enable our universities to deliver initiatives so 
important to our states. These initiatives are not only matched 7:1 
with state dollars but finance important efforts on key issues at the 
state level like herbicide resistance, water quality, profitable and 
sustainable production practices and 4-H.
Conclusion
    In summary, I appreciate the work of this Committee in crafting the 
2008 Farm Bill and, more recently, the recommendations developed last 
fall with your counterparts in the Senate. I know developing this next 
farm bill will present its own set of challenges especially from 
inadequate budget authority and international trade obligations.
    Based on my experience in working with the rice and cotton 
industries and the Arkansas Farm Bureau, I know they will work closely 
with this Committee to ensure that we have an effective farm policy. It 
is critical that we maintain provisions that allow us to be competitive 
in world markets and provide support in times of low prices. Our 
industries will evaluate different delivery systems as necessary to 
accomplish these goals.
    Thank you for the opportunity to present my views today and I will 
be happy to respond to any questions.

    The Chairman. Thank you.
    Mr. Veach, you may proceed whenever you are ready.

   STATEMENT OF RANDY VEACH, COTTON, RICE, CORN, WHEAT, AND 
                  SOYBEAN PRODUCER, MANILA, AR

    Mr. Veach. Thank you, Mr. Chairman, Members of the 
Committee, and Congressman Crawford for bringing this field 
hearing here to Arkansas. We really appreciate the opportunity 
to testify before you.
    I am a farmer from Mississippi County, Arkansas. I am a 
cotton, rice, soybean, wheat, and corn farmer, predominantly 
cotton. I farm with my wife, my son Brandon, and his wife. 
Brandon is a fourth generation farmer and we farm some land 
that my grandfather cleared and started farming. This is my 
42nd crop, so I have been farming for a pretty good while.
    I want to commend this Committee and for your leadership, 
Mr. Chairman, in putting forth a bill before the Joint 
Committee on Deficit Reduction. I think it needs to be noted 
that this was the only Committee that did put forth a bill, and 
we commend you on that.
    I also serve as President of Arkansas Farm Bureau and I 
neglected to say that earlier.
    We must, as a country, get our house back in order. And 
agriculture is ready to do our part. But we cannot balance our 
Federal budget on the backs of agriculture. We cannot cut our 
domestic support to the point where we lose our safety net. I 
believe that the farm bill should be crafted to benefit all 
sectors of agriculture. Farmers and ranchers risk it all every 
year to feed, clothe, and shelter our nation and the world.
    It is also very important to have a good farm bill that 
will protect our rural communities. Our rural communities 
depend upon agriculture and agriculture depends upon our rural 
communities.
    Commodity programs should take into consideration commodity 
and regional differences which, Mr. Chairman, you mentioned 
awhile ago. A one-size-fits-all approach will not work for all 
regions and all commodities.
    Agriculture is our state's largest industry, as Congressman 
Crawford talked about. We bring an impact of more than $9.4 
billion, a direct impact, and then an indirect impact of $16 
billion. And 20 percent of all the jobs in the State of 
Arkansas are directly related to agriculture. Arkansas is 
number one in rice, number two in catfish and broilers, and 
number three in cotton.
    Agriculture must have a workable risk management program. 
These programs consist of a combination of commodity programs 
and crop insurance. Historically, commodity programs provided 
price risk protection and crop insurance covered yield risk. In 
much of the South, our yield risk is mitigated by irrigation, 
about 80 percent of all row crops are irrigated in Arkansas. 
But this also greatly increases our input cost. That is the 
reason that crop insurance participation is lower in the Mid-
South than other parts of the country. Arkansas agriculture 
needs a traditional program that provides price protection as 
well.
    The current marketing loan program, with increased loan 
rates that reflect current prices, and a countercyclical 
program with higher target prices calculated on planted acres 
and current historic yields, would provide price protection.
    Maintaining the marketing loan program is extremely 
beneficial to all crops. We use the marketing loan program 
extensively to help reach a higher price for our commodities, 
and cotton and rice use it very much. Prices are cyclical. I 
remember back in the 1970s I sold soybeans for $12.00 a bushel. 
In 2001, we sold soybeans for $4.00 a bushel. So prices are 
cyclical and we need that price protection.
    2011 was a year of difficult and diverse weather. Flooding, 
followed by drought and again flooding. And Chairman Lucas, I 
think the drought was even more extensive in your state, and 
the opportunity to irrigate is not as good as it is in our 
state.
    Arkansas growers, through drought, did not have the losses 
that other states had, but we had a lot of losses due to 
flooding. That is another example that a one-size-fits-all 
program does not work effectively for our regions.
    One point I wanted to make on flooding was that there is a 
gap that we have in flood insurance. Crops that are stored on-
farm in storage in those facilities does not have the 
opportunity to have insurance protection. The Federal 
Government does not offer any protection for flooded grain in 
stored bins and private industry does not either. So this is 
something that needs to be addressed in the farm bill. I think 
that there was also not an opportunity for a lot of those 
producers to get the grain out of those bins and get them to 
the market so they could pay off their marketing loans. I think 
within Subtitle B, Marketing Assistance Loans and Loan 
Deficiency Payments, the Secretary should have the ability to 
extend the marketing assistance loans due to federally declared 
disasters.
    You know, I know there is a public perception regarding 
direct payments. But I feel that I must caution you on an 
overnight elimination of this program, and what it would do to 
agricultural states' economy. For example, eliminating direct 
payments would have a $243 million impact on Arkansas 
immediately, which is 1,952 jobs. This change will affect 
operating loans and rental agreements as well. Federal crop 
insurance alone will not replace the loss protection direct 
payments provide. Higher marketing loans--higher target prices 
will replace some of that money and some of that protection 
that will be lost by these direct payments.
    We also support Congressman Peterson's bill when it comes 
to dairy that offers a voluntary gross margin insurance 
program. I think that we have also put one similar to this in 
the State of Arkansas in place, and it has worked very 
successfully. But I think this is also a reason that we need to 
get a farm bill this year.
    Research: we oppose any cuts in research funding. Our 
increase in production is directly related to successful 
research and our land-grant universities do a tremendous job.
    Conservation: we want to maintain the conservation 
practices and programs, current funding on that. EQIP, it is 
especially important that we maintain the current funding level 
in EQIP. EQIP is one of those programs that helps not only row 
crops but livestock production as well.
    I will sum up by saying in conclusion, it is a benefit to 
our country to have a diverse agriculture industry. The farm 
bill should be crafted to support all sectors of agriculture.
    I appreciate the hard work of this Committee to ensure that 
farmers and ranchers have a safety net that works for their 
region and their commodity during times of decreased prices and 
difficult weather, and allows our farmers to continue to 
provide the safest, most abundant, and least expensive food 
supply in the world.
    Thank you.
    [The prepared statement of Mr. Veach follows:]

   Prepared Statement of Randy Veach, Cotton, Rice, Corn, Wheat, and 
                      Soybean Producer, Manila, AR
    Mr. Chairman and Members of the Committee, my name is Randy Veach, 
a row-crop producer from rural Mississippi County, which is the largest 
row crop county in the nation. I raise cotton, rice, corn, wheat and 
soybeans. I farm with my son Brandon, who is the fourth generation to 
farm the ground cleared by my grandfather and father. This will be my 
42nd crop.
    I am serving my fourth term as President of Arkansas Farm Bureau, 
the state's largest agriculture advocacy organization with more than 
220,000 member families.
    I commend this Committee, with your leadership Mr. Chairman, for 
putting forth a bill to the Joint Committee on Deficit Reduction. 
Agriculture was the only Committee that put forward a proposal, and you 
should be congratulated for that.
    We must as a nation get our house in order, and agriculture is 
ready to do it part in that effort. We feel across-the-board cuts are 
the fairest way to reduce our country's spending. We cannot balance the 
Federal budget on the backs of agriculture, and the cuts should not be 
so severe that eliminate the safety net that helps ensure adequate 
supplies of food and fiber. I feel, in fact, that agriculture is 
critical to our national security.
    I believe the next farm bill should be crafted to benefit all 
sectors of the agriculture community and all regions of the country. I 
also believe it should be passed this year. Farmers and ranchers risk 
it all to feed, clothe and shelter our nation and the world. A one-
size-fits-all approach will not work for all regions and all 
commodities. Farm programs should take into consideration commodity and 
regional differences.
    Agriculture has a national impact of agriculture is $170 billion. 
It is our state's largest industry with a direct impact of more than a 
$9.4 billion and an indirect impact of more than $16 billion. We 
exports more than $2 billion in agricultural products each year. 
Arkansas ranks number one in rice, number two in catfish, broilers, and 
number three in cotton.
    Agriculture must have workable risk management programs. These 
programs consist of a combination of Commodity Programs and Crop 
Insurance. Historically, commodity programs provided price risk 
protection and crop insurance covered yield risk. In Arkansas our yield 
risk is mitigated by irrigation (we are 80 percent irrigated for row 
crops). However, this greatly increases our input costs. That is the 
reason crop insurance participation is lower in the Mid-South than 
other parts of the country.
    Arkansas agriculture needs a traditional program that provides 
price protection.
    The current marketing loan program, with increased loan rates that 
reflect current prices and a countercyclical program with higher target 
prices calculated on planted acres and current historic yields, would 
provide price protection.
    Maintaining the marketing loan program benefits all the crops, as 
recent high prices of cotton, cotton placed under the CCC loan have 
been steadily declining since the 2007 crop. The Mid-South accounts for 
approximately 50 percent of cotton placed under loan. This is a perfect 
time to increase loan rates, as commodity prices are up, as well as our 
inputs (fuel, fertilizer, crop protectants, etc.) Prices are cyclical, 
and these high prices are not sustainable.

              November Average Cash Price Reported by USDA
------------------------------------------------------------------------
     Crop            1981           1991          2001          2011
------------------------------------------------------------------------
 Cotton (lb)           63.00          62.40          30.77         90.40
  Rice (cwt)            9.83           7.58           4.23         14.40
Soybeans (bu)           6.00           5.42           4.18         11.50
------------------------------------------------------------------------

    As you will see, 2001 was a very difficult year for agriculture. 
The ``three-legged stool'' approach saved agriculture during the low 
prices. The marketing loan and countercyclical program protected our 
farmers against those times of low prices.
Cotton
    Total value of cotton production in Arkansas totals $694.5 million. 
Cotton is more than lint. Cottonseed production was 5.3 million tons 
and equates to $118 million. It is used primarily by the livestock 
industry with 50 percent used by dairy farmers.
    U.S. farmers planted 14.4 million acres of cotton in 2011. This was 
an increase of 34 percent from the previous year. Mid-South plantings 
were just less than 2.5 million acres, a 29 percent increase.
    2011 was a year of difficult and diverse weather; flooding, 
followed by drought, and back to flooding.
    Abandonment rates were up 34 percent. The highest since USDA began 
reporting both planted and harvested area in 1909. The Southwest 
growers were unable to harvest 60 percent of their cotton area. As you 
know, Mr. Chairman, Oklahoma registered the largest abandonment, 83 
percent of planted area being a total loss. I contend Arkansas growers, 
through irrigation, didn't have the losses that our western neighbors 
experienced.
    This is another example of why a one-size-fits-all program will not 
work effectively for all regions.
    While flooding delayed planting in the Mid-South, our losses were 
in yield, not abandonment. Arkansas cotton production experienced a 107 
lb. decrease compared to 2010. The average price in 2010 for cotton was 
$.89 lb. If you calculate the price of cotton with 107 lb. decrease it 
equates to an average $95.23 reduction per acre.
    Due to the spring floods, for the first time, we witnessed an issue 
that needs to be addressed. Flood insurance is not offered to cover 
grain stored ``on-farm.'' With more grain stored on farm, we need the 
Federal flood insurance to cover on-farm grain stored in bins.
    Another issue that was witnessed for the first time was grain in 
the loan was unable to be delivered due to the flood. The Secretary 
could not extend the provisions of the loan due to Section 1203(b). I 
suggest amending Subtitle B, ``Marketing Assistance Loans and Loan 
Deficiency Payments'' Section 1203(b) Extension Prohibited, by either 
eliminating Section 1203(b) Extension Prohibited or establishing a 
criteria for the Secretary to have the ability to extend the marketing 
assistance loans due to Federal Declared disasters.
    I understand public perception regarding direct payments, but I 
feel that I must caution you on the overnight elimination of this 
program and what it would do to the economy of several agricultural 
states. For example, the elimination of DP would have a $243 million 
impact on Arkansas' economy, and equates to an average of $40 per acre 
in eastern Arkansas. In Iowa, the reduction is $473 million, Illinois 
$418 million and Texas $390 million. This will be an immediate 
reduction of the state's agricultural economy. This change will affect 
operating loans, rental agreements and also reduce land values. An 
immediate elimination of direct payments will cause Mid-South farmers 
higher risk due to larger operation loans with less collateral. That 
will increase pressures on agriculture lenders. I would caution the 
Committee about a complete and overnight overhaul of farm programs. 
That could affect markets, crop rotation, our state's agriculture 
economy, and have unintended consequences in the marketplace.
    Federal crop insurance will not replace the lost protection now 
provided by direct payments. Higher marketing loan rates and higher 
target rates will help provide the price protection needed by farmers.
Dairy
    For the record, I want to express our support for Congressman 
Peterson's bill to eliminate the dairy price support program and the 
Milk Income Loss Contract program and to use the funding associated 
with those programs to offer a voluntary gross margin insurance program 
for dairy farmers.
    Arkansas Farm Bureau lead an effort 3 years ago to create a 
successful state program that assisted our dairy industry.
    The main reason for this was to assist our dairy farmers during the 
toughest of times, as the national program did not work and needed an 
overhaul. Congressman Peterson's bill is the overhaul the dairy 
industry needs to survive.
Research
    We oppose any cuts to research funding. We recognize the key role 
that agricultural research plays in making and keeping the farm sector 
competitive, profitable and responsive to the country's changing food, 
feed and fiber needs.
    Our increase in production is directly related to successful 
research. Research is an invaluable investment for agriculture and the 
nation. Land-grant universities provide unbiased research that farmers 
and ranchers rely on to make informed decisions.
    We support the funding for our land-grant universities through the 
research title, particularly the formula funding like the Hatch and 
Smith-Lever that enables our universities to deliver programs so 
important to our states.
    These Federal investments are not only matched 7:1 with state 
dollars, but finance programs on key issues at the state level, like 
herbicide resistance, water quality, 4-H, as well as profitable--and 
sustainable--production practices.
    A pressing research issue is pigweed control in cotton and the 
issue of glyphosate resistance.
Conservation
    Funding for conservation practices and programs to help farmers and 
land owners comply with Federal environmental regulations should be 
maintained. I contend EQIP is the most beneficial conservation program, 
as it helps all sectors of agriculture and should remain at current 
funding levels.
    We support the current conservation programs, given the fiscal 
considerations and increasing worldwide demand for food; we strongly 
support the ``working lands'' programs over the land retirement 
programs. The five conservation programs without baseline beyond FY 
2012 should not be extended by cutting funding elsewhere.
Payment Limitations/AGI
    We oppose any changes to the current payment limitations or means 
test. To be viable, we must recognize realistic economies of scale to 
justify the large capital investment associated with farming.
Credit
    We support the enhancement of the Emergency Loan Program to assist 
farmers and ranchers during declared disasters. We feel that the 
eligibility requirements should be modified for the program to meet the 
needs of our farmers. We propose eliminating the 30 percent loss and 
the two lender credit denial requirements.
Specialty Crop
    We support our specialty crop farmers and encourage assistance on 
research, food safety, marketing and promotions.
Livestock
    We favor maintaining a livestock title.
    In conclusion, our country needs a diverse agriculture industry. 
Rural America counts on agriculture; in fact it is the primary economic 
engine for our rural communities. At the same time, agriculture counts 
on those rural communities. Anything that weakens our rural communities 
has an negative impact on agriculture. So, in that way, we have a co-
dependent relationship.
    The farm bill should be crafted to support all sectors of 
agriculture. I appreciate the hard work of this Committee to help 
ensure farmers and ranchers have a reliable safety net that works 
during times of decreased prices and difficult weather, and one that 
fits their region and their commodity. With that in place, U.S. farmers 
will continue to provide the safest, most abundant, and most affordable 
food supply in the world.
    Thank you. And God bless America.

    The Chairman. Thank you, Mr. Veach.
    Mr.Combs, you may proceed when you are ready.

 STATEMENT OF PAUL T. COMBS, RICE, SOYBEAN, COTTON, CORN, AND 
  WHEAT PRODUCER; PRESIDENT, SUNRISE LAND COMPANY, KENNETT, MO

    Mr. Combs. Thank you. Chairman Lucas, Congressman Crawford, 
Congressman Neugebauer, and Congressman Stutzman; thank you for 
holding this hearing today and for allowing me the opportunity 
to testify.
    My name is Paul T. Combs and our farms produce corn, 
cotton, wheat, soybeans, and rice in the Missouri Bootheel. My 
family is also in the farm equipment business with dealerships 
in southeast Missouri and northeast Arkansas.
    I want to start out by thanking Chairman Lucas and Ranking 
Member Peterson for the work they did in putting together a 
farm bill last fall that would have served farmers and the 
taxpayers well. I appreciated your efforts because you put 
together a farm bill that worked for all farmers rather than 
picking winners and losers. I also appreciated your work 
because it was clear that you were not driven by personal 
ideology of what farm bills should look like in concept, but 
instead, what actually works with producers on the ground. And 
finally, I thought it was extremely important that you did not 
forget the lesson of 1998 where there was inadequate protection 
in the event of low prices. That mistake was costly to farmers 
and the taxpayers alike, and I hope it is not repeated.
    It happens that what I so appreciate about the work you did 
last fall is my main message about what the 2012 Farm Bill 
should look like. The 2012 Farm Bill should not pick winners 
and losers by forcing all farmers into a policy that works for 
some, but not for others. Forcing everyone into a revenue 
program would have that effect.
    The 2012 Farm Bill should offer producers a menu of options 
that meaningfully address the risks they face on their farm. 
Price-based and revenue-based options and a STAX option for 
cotton producers makes good sense.
    The next farm bill should also meet what should be the 
lowest common denominator in any farm bill, and that is to be 
there when the bottom falls out on prices. Some people in 
Washington, and even some of my fellow producers, forget the 
basic economic lesson that what goes up usually comes down. 
Every one of us will regret being a part of a farm bill that 
would ignore this basic economic lesson. Revenue protection 
without some minimum price protection such as you included in 
the 2011 package would repeat the grave mistakes of the past if 
we see prolonged periods of low prices. This sort of policy 
would fail farmers.
    The 2012 Farm Bill should offer producers a little 
certainty at a time when there is little certainty. That means 
enacting a 2012 Farm Bill in 2012 rather than kicking the can 
down the road a year and leaving us to wonder what policy will 
be beyond next year. It also means letting the ink dry on 
substantial payment limitations and means testing reforms 
included in the 2008 bill. If Washington is serious about 
global competitiveness, it would do best to lose this sort of 
social engineering that holds us back from competing against 
heavily subsidized and protected foreign competition.
    Last, Ranking Member Peterson has, time and time again, 
suggested that crop insurance may one day be all we producers 
have left. I hope that is not the case because crop insurance 
does not work as well for farmers in this area, as it does for 
Iowa corn and bean farmers where the typical coverage is 80 or 
85 percent of revenue.
    In the case of rice, roughly \1/2\ of our production is in 
CAT and the other \1/2\ is at the 60 percent yield coverage. We 
as an industry have been trying to change this for 4 years but 
have so far been unsuccessful. Our industry will keep working 
on it, but if the two policies that we have pending are 
improved, we are still a long way off from being where 
producers in the Midwest are relative to crop insurance.
    So the bottom line is we are entering the farm bill debate 
at a huge disadvantage as one of the main things that works for 
us is the direct payment and that is the one thing that is 
going to be eliminated under this bill.
    Fortunately, Mr. Chairman and Mr. Peterson, you know this 
well and you have worked with our industry to ensure that rice 
farmers are not left out in the cold in this farm bill process. 
And for that, we all thank you very much. We are grateful to 
both of you.
    Thanks once again for taking the time to be here today and 
for the opportunity to hear perspectives of producers like 
myself.
    [The prepared statement of Mr. Combs follows:]

 Prepared Statement of Paul T. Combs, Rice, Soybean, Cotton, Corn, and 
      Wheat Producer; President, Sunrise Land Company, Kennett, MO
Introduction
    Chairman Lucas, Ranking Member Peterson, and Members of the 
Committee, thank you for holding this hearing concerning farm policy 
and the 2012 Farm Bill. I appreciate the opportunity to offer testimony 
on farm policy from the perspective of a producer who comes from an 
area that produces many different crops and where we have a number of 
cropping options.
    My name is Paul T. Combs. I raise rice, soybeans, cotton, corn, and 
wheat in Dunklin and Pemiscot counties in the Missouri Bootheel. In 
addition to our farming operation, my family and I also own and operate 
farm equipment dealerships in both Missouri and Arkansas.
    I recently completed two terms on the board of the Federal Reserve 
Bank of St. Louis. I also serve on several boards and committees for 
farm organizations, including the USA Rice Federation.
Effects of Strong Farm Policy
    As a producer who is involved in both production agriculture and as 
an agribusiness supplier, I come to the table with a somewhat unique 
perspective.
    As a producer, I need long-term certainty in Federal farm policy 
that will allow me to make business planning decisions on my farm. For 
this reason, I believe it is imperative that Congress pass a 5 year 
farm bill this year, not a short-term extension that leaves me in limbo 
as to what policy will be in place. We are trying to grow our farm by 
purchasing land when opportunities arise. We are trying to improve our 
marketing options by expanding on-farm storage capacity so we can 
better market our crops. These types of decisions require not only 
long-term policy, but policy that will allow us to tailor our risk 
management options to the needs of our farm.
    As an agribusiness owner, I see firsthand the impact that 
uncertainty and inadequate farm policy can have on producers when it 
comes to their decisions about investing in new equipment for their 
farms. Right now prices are decent for most of the crops in our area, 
but we all know how cyclical commodity prices are, and every grower 
needs a policy that will provide some downside price protection if (and 
likely when) we see a steep decline in commodity prices. Without this 
type of certainty, farmers, like any businessperson, will take steps to 
minimize their exposure to risk, resulting in a pullback in investments 
for their farm. This pullback starts first with their suppliers of 
inputs (equipment, grain storage facilities, fertilizer) and then 
begins to impact the majority of businesses in rural America. We've 
seen this cycle play out over and over and I hope we will not repeat 
the mistakes of the past by putting in place a farm policy that assumes 
good prices are here to stay, and then we find out it is ill-equipped 
to deal with the decline in prices that is sure to come.
    Effective farm policy gives producers the confidence we need to 
continue to invest in our farms and the confidence that lenders need to 
extend the financing to producers to make these investments. During my 
time on the Federal Reserve board, I saw the importance of not 
hindering this access to credit.
2008 Farm Bill Review
    The traditional mix of farm policies that were continued in the 
2008 Farm Bill including the nonrecourse marketing loan, loan 
deficiency payment, and countercyclical payments have not triggered for 
most crops due to the current market price levels. Yet the cost of 
inputs have increased in step with the rise in commodity prices so the 
current levels of price protection afford very limited protection to 
producers. However, I would note the importance of maintaining the 
existing marketing loan which plays an important role in marketing of 
our cotton and rice in particular.
    As such, whatever its imperfections, the Direct Payment alone has 
assisted producers in meeting the ongoing and serious price and 
production risks of farming today.
    Because the Direct Payment has been singled out for elimination in 
the next farm bill, I believe that we must strengthen the remaining 
policies in the 2012 Farm Bill to ensure that producers have the 
ability to adequately manage their risks and access needed credit.
Crop Insurance
    The current suite of risk management products offered through 
Federal Crop Insurance has provided limited value to producers in the 
Mid-South.
    What farmers need from Federal crop insurance are products that 
will help protect against increased production and input costs, 
particularly for energy and energy-related inputs. Because crop 
insurance does not cover the margin risk that some producers face, we 
must work to develop a new generation of crop insurance products that 
will provide more meaningful risk management tools that will aid in 
protecting against sharp, upward spikes in input costs. I am aware that 
the rice industry is currently pursuing development of such a product, 
but it is important to stress that even if a new product is approved 
this year, it takes several years to conduct a pilot to ensure the 
policy is functioning properly. And it will be a long road to explain 
the new product to producers and encourage evaluation of the policy, 
particularly in areas like mine where we have not historically seen 
high levels of participation in crop insurance. The bottom line is that 
even if crop insurance is made effective one day for rice and other 
crops currently under-served, insurance cannot replace the need for 
farm policy under the farm bill for any crop.
Conservation
    Conservation policies play an important role in production 
agriculture by providing financial cost-share and technical assistance 
to producers in their continual efforts to conserve water, soil, air, 
and wildlife habitat. I support maintaining a strong conservation title 
in the farm bill, in particular one that emphasizes working lands 
conservation incentives, but not at the expense of the commodity 
policies.
    Voluntary, incentive-based, and science-based conservation 
initiatives are needed, as is technical assistance. The Conservation 
Security Program (CSP), Conservation Stewardship Program (CSP), and the 
Environmental Quality Incentives Program (EQIP) are important working 
lands initiatives that assist producers with protection of the 
environment and conservation of natural resources and should be 
reauthorized.
    Rice producers in my area were some of the early participants in 
the original CSP and we saw real benefits from this and the other 
conservation initiatives.
    I support the efforts undertaken last fall by the Agriculture 
Committees to streamline and consolidate the conservation title as part 
of the Select Committee process, and I urge you to continue with this 
approach in developing the conservation title in the 2012 Farm Bill.
    I would like to note that rice farming is one of the few commercial 
enterprises that actually promotes wildlife habitat and improves 
biological diversity.
    Since the very nature of rice production requires that fields be 
flooded for many months of the year, evidence shows unequivocally that 
it plays a vital role in supporting common environmental goals, such as 
protecting freshwater supplies and providing critical habitat for 
hundreds of migratory bird species.
    Without rice farming, wetland habitats in the United States would 
be vastly reduced. A loss of this magnitude would have a disastrous 
effect on waterfowl and a host of other wetland-dependent species.
    The clear and positive benefits that commercial rice production has 
for migratory birds and other wildlife species contribute not only to a 
more interesting and diverse landscape, but also provide economic 
benefits that support local economies and create jobs.
    By providing an environment favorable to wildlife advancement, rice 
production clearly generates positive benefits to the economy and 
society.
Farm Bill 2012
    Farm policy should be designed to support a strong and dynamic U.S. 
agriculture sector.
    As noted earlier, the 1996 Farm Bill's Direct Payments have 
provided critical help to farmers in the Mid-South--offering capital 
farmers could tailor to their unique needs.
    However, given the pressure to move away from this policy to more 
countercyclical policies, I support the following priorities:

  <bullet> The triggering mechanism for assistance should be updated to 
        provide tailored and reliable help should commodity prices 
        decline below today's production costs, and should include a 
        floor or reference price to protect in multi-year low price 
        scenarios.

  <bullet> Second, as payments would only be made in loss situations, 
        payment limits and means tests for producers should be 
        eliminated.

  <bullet> Third, Federal crop insurance should be improved to provide 
        more effective risk management for rice in all production 
        regions, beginning with the policy development process.
Price Protection Is Imperative
    Given the price volatility for the crops I produce, and the fact 
that most crops in my area are irrigated, most of the risk that I face 
is on prices, not necessarily production. This is very true for my 
rice, which is fully irrigated, but most of my others crops are 
irrigated as well. To address this primary risk, I believe providing 
effective levels of price support for all crops should be the central 
focus of this farm bill, and honestly this is what farm policy has 
historically been focused on and that should continue.
    I hear some contend that a revenue-based policy with no reference 
or floor price is the right approach to take in this farm bill and is 
all that is needed when coupled with crop insurance. It seems to me 
that this approach is flawed in several ways. First, this assumes that 
crop insurance works equally well for all crop and regions, which I can 
assure you is not the case today. Second, this assumes that we won't 
face another 1998 through 2002 scenario where we have good commodity 
prices that quickly fell to catastrophic levels dues to global factors. 
Third, this assumes that if commodity prices fall then input costs will 
decline in sync and proportional to the decline in prices. I have to 
say that if history is any guide, then I believe all three of these 
assumptions will prove wrong. And by not planning now for this type of 
scenario, we are setting ourselves up for another situation where farm 
policy will not be equipped to respond to this price decline. The 
result will be a significant economic downturn in rural America, 
followed by calls for Congress to provide additional economic 
assistance in a time of large Federal budget deficits and debt.
    In addition, what happens if the price of only one or two 
commodities decline sharply? I can't imagine that input costs are going 
to decline in this scenario, so producers of these crops are forced to 
deal with a severely depressed price environment where our options are 
to either stop producing all together, or shift into the other crops 
with higher prices. This could have severe implications to the 
infrastructure for the crops with depressed prices and reduced 
production. We have seen this occur in some areas with both rice and 
cotton infrastructure and I believe we can ill-afford a farm policy 
that would not provide us with effective down side price protection to 
forestall any further contraction of these industries.
    For example, based on the farm bill process last fall, I believe 
the reference price for rice should be increased to $13.98/cwt ($6.30/
bu). This level would more closely reflect the significant increases in 
production costs for rice. And this reference price should be a 
component of both the price-loss policy and the revenue-loss policy to 
ensure downside price protection.
Producer Choice
    In addition, there should be true options for producers that 
recognize that a one-size-fits-all approach to farm policy does not 
work effectively for all crops or even the same crop in different 
production regions.
    Here in the Mid-South where I farm, a price-based loss policy is 
viewed as being most effective in meeting the risk management needs, 
again largely due to our consistent production as a result of large 
investments in irrigation infrastructure and being blessed with 
adequate water resources. Specifically, this policy should include a 
price protection level that is more relevant to current cost of 
production; paid on planted acres or percentage of planted acres; paid 
on more current yields; and take into account the lack of effective 
crop insurance policies for many crops in my area.
    Using rice as an example, this is a crop grown in a fairly limited 
geographic area, yet there are distinctions between growing regions 
that make a difference in what policy will work best for rice. In the 
California production region, although the existing revenue-based 
policy still does not provide effective risk management, efforts to 
analyze modifications which will increase its effectiveness continue. 
Since rice yields are highly correlated between the farm, county, crop 
reporting district, and state levels, we believe the revenue plan 
should be administered for rice at either the county or crop reporting 
district level to reflect this situation rather than lowering guarantee 
levels to use farm level yields. By setting loss triggers that reflect 
local marketing conditions, delivering support sooner, and 
strengthening revenue guarantees that account for higher production 
costs as well as the absence of effective crop insurance, California 
rice producers are hopeful that an effective revenue option can be 
developed.
    While I have focused on the need for a choice for rice producers in 
different regions, this also applies for producers of most other 
grains. I support having policy options available for corn, soybeans, 
and wheat, which I produce, and believe that both a price-based policy 
and a revenue-based policy should be offered as options for these 
crops.
    I indicated earlier that I am also a cotton producer. I want to 
encourage the Committee to include the cotton industry's area wide, 
risk management proposal in the new farm bill. It has been designed to 
fit the new budget constraints, while providing a reasonable and 
sustainable safety net for cotton producers. While it is certainly not 
perfect and is not comparable to our current policy, it represents the 
substantial reform necessary to provide a basis to resolve the 
longstanding Brazil WTO case. It does fit the cotton industry's 
situation far better than the revenue plans designed by Midwestern 
interests for grains and oilseeds. And it preserves the marketing 
assistance loan, with modifications, that is so important to our entire 
industry. It is imperative that the Brazil case be resolved by the end 
of 2012 to eliminate any possibility that Brazil will impose the 
prohibitively high tariffs authorized by the WTO. Retaliation in the 
form of high tariffs will disrupt U.S. exports and adversely impact 
U.S. businesses across the board.
    Bankability--SURE is not tailored to the multiple business risks 
producers face. ACRE, while offering revenue-based protection, is 
complicated by requiring two loss triggers; providing payments nearly 2 
years after a loss; and provides no minimum price protection--it is not 
bankable. For example, on farms I enrolled in the ACRE program I just 
received this month the ACRE payments for the 2010 crop. This is not a 
policy I can take to a lender and show that it will provide a 
meaningful and timely safety net. The marketing loan and target prices 
are plain and bankable--unfortunately the trigger prices are no longer 
relevant to current costs and prices.
    Defendable--It makes sense to provide assistance when factors 
beyond the producer's control create losses for producers. I believe 
that tailored farm policies are more defendable. For this reason, 
updating bases and yields or applying farm policies to planted acres/
current production and their triggering based on prices or revenue, 
depending on the option a producer chooses. However, policy choices 
should not result in severe regional distortions in commodity policy 
budget baselines from which reauthorized commodity policies must be 
developed. Whatever is done should allow for proportional reductions to 
the baseline among commodities.
    Building a safety net to withstand multi-year low prices--Whether 
in a revenue-based plan, or a price-based plan, reference prices should 
protect producer income in a relevant way in the event of a series of 
low price years. Ideally, this minimum could move upward over time 
should production costs also increase, this being of particular concern 
in the current regulatory environment.
    No distortion of planting decisions--Any commodity specific farm 
policy that is tied to planted acres must be designed with care so as 
to not create scenarios that incentivize farmers to plant for a farm 
policy. As I have followed the current farm bill debate since last 
fall, I am amazed at some of the assertions about a price-based policy 
distorting planting decisions and resulting in large acreage shifts. 
The price levels that I understand were developed last year and how 
they were factored based on acreage and yield percentages would have 
meant they were well below our costs of production for all crops. This 
idea that maintaining a price-based policy is somehow distorting, and 
that a revenue-based policy that is based off historically high prices 
is non-distorting is misleading.
Payment Limitations and Means Testing
    I strongly oppose any further reduction in the payment limit and 
adjusted gross income (AGI) levels provided under the current farm 
bill. Payment limits have the negative effect of penalizing viable 
commercial size, family farms the most when crop prices are the lowest 
and support is the most critical. To be a viable farm, we must use 
economies of scale to justify the large capital investment costs 
associated with farming today. It is essential that producers maintain 
eligibility for all production to the non-recourse loan. Arbitrarily 
limiting payments results in farm sizes too small to be economically 
viable, particularly for rice, cotton, and grain farms across the 
Sunbelt. The current payment limit and AGI provisions have created 
significant paperwork burdens and costs to producers to comply and 
remain in compliance. As oppressive as these limits are, at a minimum 
Congress should not make any further reductions or limits that further 
penalize commercially viable farms.
2011 Efforts for Submission to the Joint Committee on Deficit Reduction
    I believe that the package prepared for recommendation for the 
Budget Control Act of 2011 is a good framework on which to build the 
2012 Farm Bill. The choice of risk management tools that producers can 
tailor to the risks on their own farms, providing under each of those 
options more meaningful price protection that is actually relevant to 
today's production costs and prices. I appreciate the hard work of the 
House and Senate Agriculture Committees and their staff to address the 
budget constraints you are under, while working in a bicameral and 
bipartisan fashion to achieve workable solutions for the farm bill.
Conclusion
    Again, thank you for your leadership and for the opportunity to 
offer my testimony this morning. I look forward to working with you and 
your staff as we move forward in this process. I would be happy to 
respond to any questions you might have.

    The Chairman. Thank you, Mr. Combs.
    Mr. Flowers, proceed when you are ready.

STATEMENT OF RICHARD BOWEN FLOWERS, Jr., COTTON, CORN, SOYBEAN, 
                   WHEAT, AND RICE PRODUCER,
                         CLARKSDALE, MS

    Mr. Flowers. First, I would l like to offer my thanks to 
Chairman Frank Lucas and Members of the Committee for the 
chance to provide input on the importance of an effective and 
flexible farm policy. My thanks are also extended to 
Congressman Rick Crawford for hosting today's hearing. My name 
is Bowen Flowers and I operate a diversified family farm 
partnership in and around Clarksdale, Mississippi, which is 
about 150 miles south of Jonesboro. My crop mix includes 
cotton, corn, soybean, wheat, and rice.
    Mr. Chairman, I understand the daunting task facing this 
Committee with the development of new farm legislation. Budget 
pressures will mean addressing a broad array of interests and 
priorities with less money. In my opinion, agriculture is 
willing to take a proportionate contribution to deficit 
reduction, but efforts to impose inequitable reductions on 
agriculture should be strongly opposed.
    With respect to production agriculture, I encourage this 
Committee to take into consideration the diversity of 
production practices, cost structures and risk profiles. A one-
size-fits-all farm program cannot address this diversity, and I 
hope that the eventual farm bill will offer a range of programs 
structured to address the needs of the different commodities 
and production regions.
    I also urge the Committee to complete the farm bill this 
year, in advance of the expiration of the current legislation. 
We need some certainty regarding farm programs as we look at 
the long-term investments necessary to keep our farming 
operations economically viable.
    Although my operation has a diversified mix of crops, I 
consider cotton my primary crop. As you are well aware, cotton 
faces the additional challenge of resolving an ongoing trade 
dispute with Brazil. In that dispute, a WTO panel found fault 
with cotton's marketing loan and target price. In preparing for 
the expedited farm bill debate, cotton producers had to make 
some difficult policy decisions. To that end, the National 
Cotton Council has proposed dramatic changes to upland cotton 
programs by eliminating the target price and introducing a 
formula that will allow the marketing loan to adjust lower in 
times of low prices. In place of the target price as well as 
the ACRE program and the direct payment, the cotton industry is 
proposing a revenue-based insurance product that will address a 
level of risks for which current insurance products do not 
offer affordable options.
    I strongly support the industry's proposal known as STAX, 
and hope the Committee looks favorably on this option when 
crafting the next farm bill. I commend the National Cotton 
Council for developing this area-wide revenue-loss crop 
insurance program. It should be noted since this is a crop 
insurance program, producers would be required to pay part of 
the cost of such coverage. Covering up to 95 percent of revenue 
is especially important in my region, based on high cost of 
inputs and thin margins. Several years of five percent or more 
revenue losses would be economically devastating to my 
operation.
    While I am a diversified producer, it is important to note 
that cotton production is the most single significant economic 
driver in my area. It means jobs on the farm, in gins, 
warehouses and through the production and processing cotton 
cycle. The spin-off impact on rural communities in the Delta, 
for input suppliers, equipment dealers, and others is also 
significant. Even a moderately sized city such as Clarksdale is 
very dependent on agriculture. Therefore, a viable cotton farm 
policy is especially critical to our rural area.
    Mr. Chairman, I would also like to voice my concerns about 
the efforts to further tighten payment limits or impose 
arbitrary means tests. Effective farm policy must maximize 
participation without regard to size or farm income.
    In conclusion, I will touch briefly on two final points.
    First, crop insurance is a critical tool for effective risk 
management. I personally purchase crop insurance coverage on my 
crops. With the STAX product, the cotton industry is proposing 
to broaden the menu of insurance choices. I encourage all 
existing products be maintained as well.
    Second, conservation programs were strengthened in the 2008 
Farm Bill, and I hope these programs will continue to provide 
workable options for Mid-South farming operations.
    Thank you again for the opportunity to offer these comments 
and I will be happy to answer questions at the appropriate 
time.
    [The prepared statement of Mr. Flowers follows:]

    Prepared Statement of Richard Bowen Flowers, Jr., Cotton, Corn, 
           Soybean, Wheat, and Rice Producer, Clarksdale, MS
    First, I would like to offer my thanks to Chairman Frank Lucas, 
Ranking Member Collin Peterson, and Members of the Committee for the 
chance to provide input on the importance of an effective and flexible 
farm policy. My thanks are also extended to Congressman Rick Crawford 
for hosting today's hearing. My name is Bowen Flowers and I operate a 
diversified family farm partnership in and around Clarksdale, 
Mississippi, which is about 150 miles south of Jonesboro. My crop mix 
includes cotton, corn, soybeans, wheat and rice.
    Mr. Chairman, I understand the daunting task facing this Committee 
with the development of new farm legislation. Budget pressures will 
mean addressing a broad array of interests and priorities with less 
money. In my opinion, agriculture is willing to make a proportionate 
contribution to deficit reduction, but efforts to impose inequitable 
reductions on agriculture should be strongly opposed.
    With respect to production agriculture, I encourage this Committee 
to take into consideration the diversity of production practices, costs 
structures and risk profiles. A one-size-fits-all farm program cannot 
address this diversity and I hope that the eventual farm bill will 
offer a range of programs structured to address the needs of the 
different commodities and production regions.
    I also urge the Committee to complete the farm bill this year--in 
advance of the expiration of the current legislation. We need some 
certainty regarding farm programs as we look at the long-term 
investments necessary to keep our farming operations economically 
viable.
    Although my operation has a diversified mix of crops, I consider 
cotton my primary crop. As you are well aware, cotton faces the 
additional challenge of resolving an ongoing trade dispute with Brazil. 
In that dispute, a WTO panel found fault with cotton's marketing loan 
and target price. In preparing for the expedited farm bill debate, 
cotton producers had to make some difficult policy decisions. To that 
end, the National Cotton Council has proposed dramatic changes to 
upland cotton programs by eliminating the target price and introducing 
a formula that will allow the marketing loan to adjust lower in times 
of low prices. In place of the target price, as well as the ACRE 
program and the direct payment, the cotton industry is proposing a 
revenue-based insurance product that will address a level of risks for 
which current insurance products do not offer affordable options.
    I strongly support the industry's proposal, known as STAX, and hope 
the Committee looks favorably on this option when crafting the next 
farm bill. I commend the National Cotton Council for developing this 
area-wide revenue-loss crop insurance program. It should be noted that 
since this is a crop insurance program, producers would be required to 
pay part of the cost of such coverage. Covering up to 95% of revenue is 
especially important in my region based on high cost of inputs and thin 
margins. Several years of 5-10% revenue losses would be economically 
devastating to my operation.
    While I am a diversified producer, it is important to note that 
cotton production is the most significant economic driver in my area. 
It means jobs on the farm, in gins, warehouses and on through the 
production and processing cotton cycle. The spin-off impact on rural 
communities in the Delta and other regions for input suppliers, 
equipment dealers and others is also significant. Even a moderately-
sized city such as Clarksdale is very dependent upon agriculture. 
Therefore a viable cotton farm policy is especially critical to our 
rural economy.
    As a cotton farmer, I understand that my ability to produce a crop 
will be dependent on strong demand for my product. The U.S. cotton 
industry sells both to domestic textile mills as will as international 
mills, and both markets are extremely important. Fortunately, the 2008 
Farm Bill included programs that benefit both markets.
    In the case of U.S. textile mills, the 2008 farm law introduced the 
Economic Adjustment Assistance Program. The program is a success story 
that is revitalizing the U.S. textile manufacturing sector and adding 
jobs to the U.S. economy. The program provides a payment to U.S. 
textile manufacturers for all upland cotton consumed. The payment rate 
from August 1, 2008 through July 31, 2012, is 4 cents per pound of 
cotton used, and will be adjusted to 3 cents per pound beginning on 
August 1, 2012. I encourage the continuation of this important program 
in the new farm law.
    In addition, the continuation of adequately funded export promotion 
programs, including the Market Access Program (MAP) and Foreign Market 
Development (FMD) Program, are important in an export-dependent 
agricultural economy. Individual farmers and exporters do not have the 
necessary resources to operate effective promotion programs which 
maintain and expand markets--but the public-private partnerships 
facilitated by the MAP and FMD programs, using a cost-share approach, 
have proven highly effective and have the added advantage of being WTO-
compliant.
    Mr. Chairman, I would also like to voice my concerns about efforts 
to further tighten payment limits or impose arbitrary means tests. 
Effective farm policy must maximize participation without regard to 
size or farm income. Artificially limiting benefits is a disincentive 
to economic efficiency and undermines the ability to compete with 
heavily subsidized foreign agricultural products. I appreciate the 
pressures from some in Congress for even more restrictive limits, but I 
would like to remind the Committee that the 2008 Farm Bill contained 
significant changes with respect to payment limitations and payment 
eligibility. In fact, the 2008 farm law included the most comprehensive 
and far-reaching reform to payment limitations in 20 years. The 
limitations were made more restrictive, and the adjusted gross income 
test was substantially tightened. As part of the 2012 Farm Bill, I urge 
this Committee to not impose any further restrictions on payment 
eligibility including lower limits or income means tests.
    In conclusion, I will touch briefly on two final points. First, 
crop insurance is a critical tool for effective risk management. I 
personally purchase crop insurance coverage on my crops. With the STAX 
product, the cotton industry is proposing to broaden the menu of 
insurance choices. I encourage all existing products be maintained as 
well. Second, conservation programs were strengthened in the 2008 Farm 
Bill, and I hope those programs will continue to provide workable 
options for Mid-South farming operations.
    Thank you again for the opportunity to offer these comments. I will 
be happy to answer questions at the appropriate time.

    The Chairman. Thank you, Mr. Flowers.
    Mr. Burch, whenever you are ready to proceed.

   STATEMENT OF TIM BURCH, COTTON AND PEANUT PRODUCER, BURCH 
                       FARMS, NEWTON, GA

    Mr. Burch. Good morning, Mr. Chairman and Members of the 
Committee. My name is Tim Burch. I am a native of Baker County, 
Georgia which is located in the southwest part of the state. My 
father, brother, and I run a diversified farming operation. We 
have approximately 500 acres of peanuts, 1,500 acres of cotton 
and 150 head of cattle. I have been farming for 37 years and 
live on the farm of my grandparents. I serve on the Georgia 
Peanut Commission and I am an alternate to the National Cotton 
Council. I also am active in Georgia Farm Bureau.
    It is critical that Congress pass a 5 year farm bill. 
Farmers, agribusiness, and financial institutions need as much 
certainty as possible in an industry that has a very large 
number of variables impacting profits and losses.
    When I began farming, the peanut industry was driven by a 
Federal supply management peanut policy. In 2002, peanut 
growers met with the House Agriculture Committee leadership and 
asked the Committee to move our program policy from the peanut 
quota program to a marketing loan type program. This marketing 
loan program is what we have today. It has been very successful 
for our industry. We support the current program as included in 
the 2008 Farm Bill but we recognize that there is significant 
effort to eliminate direct payments. All of our policy analyses 
assume that direct payments are eliminated. For the last 
several farm bills, peanut producers have relied on the 
University of Georgia's National Center for Peanut 
Competitiveness for farm policy economic analyses. The Center 
has 22 U.S. representative peanut farms established and 
maintained by the Center. As farm organizations, Members of the 
House and Senate, as well as public institutions offered farm 
policy concepts for the 2012 Farm Bill, the Center would 
analyze each proposal, including multiple scenarios through the 
22 U.S. representative farms dispersed throughout the peanut 
belt.
    What was evident with each of these alternative or revenue 
type programs is that they did not work on the 22 
representative farms. I recognize that some organizations 
believe that a one-size-fits-all revenue program will work for 
the U.S. agricultural economy. I do not agree. Our cost 
structure and equipment needs alone are significantly different 
than that of the Midwest and our peanut producers require very 
specialized equipment. Why do these revenue proposals not work 
for peanuts?
    First of all, there is no consideration for irrigated 
versus non-irrigated production practices. There are 
significant yield differences for peanuts--at 1,100-1,400 
pounds, based on Risk Management Agency's data and the U.S. 
peanut representative farms. The Center's 2011 preliminary data 
indicates that the yield differences could reach 3,000 pounds 
and higher per acre in Georgia. National Agricultural 
Statistics Service county yields do not separate out the 
differences between irrigated and non-irrigated peanuts.
    Second, there is no revenue insurance program for peanuts.
    Third, peanuts do not have any source of predicted harvest 
price.
    Peanuts do not and will not have a futures market like 
other row crops.
    The Rotterdam price series with appropriate conversion 
formula for peanuts is the best source. Our own U.S. Government 
used the Rotterdam price series during the GATT trade 
negotiations and the USDA Foreign Agricultural Service reports 
that price series.
    Utilizing NASS-CRD and NASS county yields will not work for 
peanuts. None of the six Georgia representative farms analyzed 
triggered on either the CRD criteria or the county level using 
existing NASS yields. No CRD district that has one of the 
Center's representative peanut farms outside of the Southeast 
would trigger a payment. Peanuts have a greater variability of 
yield within a county and CRD than any other crop excluding 
cotton.
    An Olympic average does not work to protect a farm from a 
period of depressed prices or weather related depressed yields.
    Given the 2011 peanut season, none of the non-irrigated 
producers who had between no yield and 1,000 pounds would have 
been helped by any of the proposed revenue proposals.
    If we eliminate direct payments, what will work for the 
peanut producers? After conferring with the Center over the 
last 9 months, we believe producers need a policy choice to 
manage risk, including revenue protection, price protection and 
crop insurance. I support producers having a choice between a 
countercyclical type program with a trigger price of $534 per 
ton and a revenue program. The Center believes this target 
price will serve as protection during periods of low prices. 
USDA estimates that the market price for peanuts is over $1,200 
per ton. I can assure you, just as any peanut producer or major 
buyer of peanuts would, that $534 target price will not 
increase peanut production or acreage. Please also note that we 
have to rotate peanuts and if our rotation gets out of sync 
then costs escalate and yields decline.
    At the same time, peanut producers need a revenue program 
that is a real viable choice for producers. This should include 
a reference price of $534 per ton and a world market price 
determined by the Rotterdam price analysis.
    Mr. Chairman, you and other Members of the Committee were 
successful in reforming payment limitation rules in the 2008 
Farm Bill. Working with agricultural groups and Members of 
Congress not on the Agriculture Committee, I believe the 
reforms in the 2008 Farm Bill were equitable, and I ask that 
the current adjusted gross income rules and payment limitation 
restrictions be continued in the 2012 Farm Bill.
    In closing, I appreciate the opportunity to testify before 
the Committee today. You have a difficult task as you attempt 
to reconcile a crisis in our Federal budget while assuring that 
America has an adequate and safe food supply.
    Thank you.
    [The prepared statement of Mr. Burch follows:]

  Prepared Statement of Tim Burch, Cotton and Peanut Producer, Burch 
                           Farms, Newton, GA
    Good morning, Mr. Chairman, Members of the Committee. My name is 
Tim Burch. I am a native of Baker County, Georgia which is located in 
the southwest part of the state. My father, brother and I run a 
diversified farming organization. We have approximately 500 acres of 
peanuts, 1,500 acres of cotton and 150 head of cattle. I have been a 
farmer for 37 years and live on the farms of grandparents. We are a 
family farm with a long, proud history. In addition, I am involved in a 
cotton gin and warehouse as well as a peanut buying point, warehouse 
and peanut shelling facility with 87 other growers in Georgia. Our 
agribusiness was founded on the principle that family farmers had to 
join together to market their products in order to have a future.
    I serve on the Georgia Peanut Commission and am an alternate to the 
National Cotton Council. I also am active with the Georgia Farm Bureau.
    I appreciate the opportunity to testify today on The Future of U.S. 
Farm Policy: Formulation of the 2012 Farm Bill. Our family's livelihood 
is based on agriculture and farm policy.
    It is critical that Congress pass a 5 year farm bill. Farmers, 
agribusinesses and financial institutions need as much certainty as 
possible in an industry that has a very large number of variables 
impacting profits and losses. A 5 year farm bill allows all segments of 
agriculture the opportunity to achieve the economic impact that all of 
us desire.
    When I began farming, the peanut industry was driven by a Federal 
supply-management peanut policy. In 2002, peanut growers met with the 
House Agriculture Committee leadership and asked the Committee to move 
our program policy from the peanut quota program to a marketing loan 
type program. This marketing loan program is what we have today. It has 
been very successful for our industry. We support the current program 
as included in the 2008 Farm Bill but we recognize that there is a 
significant effort to eliminate direct payments. All of our policy 
analyses assume that direct payments are eliminated. For the last 
several farm bills, peanut producers have relied on the University of 
Georgia's National Center for Peanut Competitiveness (Center) for farm 
policy economic analyses. The Center has 22 U.S. Representative Peanut 
Farms established and maintained by the Center. As farm organizations, 
Members of the House and Senate as well as public institutions offered 
farm policy concepts for the 2012 Farm Bill, the Center would analyze 
each proposal, including multiple scenarios through the 22 U.S. 
Representative Farms dispersed throughout the peanut belt.
    What was evident with each of these alternative or revenue type 
programs is that they did not work on the 22 Representative Farms. I 
recognize that some organizations believe that a one size fits all 
revenue program will work for the U.S. agricultural economy. I do not 
agree. Our cost structure and equipment needs alone are significantly 
different than the Midwest with our peanut producers requiring very 
specialized equipment. Why don't these revenue proposals work for 
peanuts?

  <bullet> There is No Consideration for irrigated versus non-irrigated 
        production practices. There are significant yield differences 
        for peanuts--at least 1,100-1,400 lbs.--based on Risk 
        Management Agency (RMA) data and the U.S. Peanut Representative 
        Farms. The Center's 2011 preliminary data indicate that the 
        yield differences could reach 3,000 lbs. and higher per acre in 
        Georgia. National Agricultural Statistical Service (NASS) 
        county yields do not separate out the differences between 
        irrigated and non-irrigated peanuts.

  <bullet> There is NO revenue insurance program for peanuts--all 
        proposals use revenue insurance as the core part of their 
        program where a producer is covered at the 65-85% level. 
        Peanuts had a GRIP yield insurance program but no peanut 
        farmers used it so RMA has discontinued the program. This 
        implies county yield based programs do not work for peanuts.

  <bullet> Peanuts do not have any source for a predicted harvest 
        price.

  <bullet> Peanuts DO NOT and WILL NOT HAVE A FUTURES MARKET like other 
        row crops. Multiple land-grant university studies and efforts 
        by the U.S. Department of Agriculture have all concluded that a 
        futures market is not an option for peanuts.

  <bullet> The Rotterdam price series with appropriate conversion 
        formula for peanuts is the best source. Our own U.S. Government 
        used the Rotterdam price series during the GATT trade 
        negotiations and the USDA Foreign Agricultural Service reports 
        that price series.

  <bullet> Utilizing NASS-CRD and NASS-County yields WILL NOT work for 
        peanuts. None of the six Georgia Representative Farms analyzed 
        trigger on either the CRD criteria or the county level using 
        existing NASS yields. No CRD district that has one of the 
        Center's Representative Peanut Farms outside the Southeast 
        would trigger a payment. Peanuts have a greater variability of 
        yields within a county and CRD than other row crops excluding 
        cotton.

  <bullet> An Olympic average does not protect a farm from a period of 
        depressed prices or weather related depressed yields.

  <bullet> Given the 2011 peanut season, none of the non-irrigated 
        producers who had between no yields to 1,000 lbs would have 
        been helped by any of the proposed revenue proposals.

    If we eliminate direct payments, what will work for peanut 
producers? After conferring with the Center over the last 9 months, we 
believe producers need a policy choice to manage risk--Revenue 
Protection, Price Protection and Crop Insurance. I support producers 
having a choice between a countercyclical type program with a target 
price of $534 per ton and a revenue program. The Center believes this 
target price will serve as protection during periods of low prices. 
USDA estimates that the market price for peanuts is over $1,200 per 
ton. I can assure you, just as any peanut producer or major buyer of 
peanuts would, that a $534 per ton target price WILL NOT increase 
peanut production or acreage. Please also note that we have to rotate 
peanuts and if our rotation gets out of sync then costs escalate and 
yields decline.
    At the same time, peanut producers need a revenue program that is a 
real, substantive choice for producers. This should include a Reference 
Price of $534 per ton and a world market price determined by a 
Rotterdam price analysis.
    In addition, to Producer Choice, our growers must have access to a 
full range of workable and useful crop insurance products in order to 
compete for acreage. Working toward these goals, the nation's peanut 
farmers came together 2\1/2\ years ago to begin work with private 
industry and RMA to develop a viable insurance program for peanuts. 
This new program proposal is very much like the successful revenue 
insurance policies for cotton and corn as well as several other crops. 
This new peanut policy would take a farmers average production history 
and let the farmer insure a percentage of it according to what the 
farmer needs to have guaranteed. This part is not changed from the 
present program, but what is different is that the farmer will be 
assured to receive what the peanuts are actually worth if he has a 
shortfall in production and not some arbitrary amount set in stone 
months before planting time. The farmer will receive payment on what 
the peanuts are worth at a certain period of time during the year, so 
farmers know whether they can afford to plant. It is critical that we 
have the support of RMA and the House Agriculture Committee to get the 
peanut crop insurance program viably priced and implemented in 2013. I 
would hope that the changes Congress makes for crop insurance, in the 
2012 Farm Bill, would be to improve the programs and not harm crop 
insurance products.
    I indicated earlier that I am also a cotton producer. I want to 
encourage the Committee to include the cotton industry's area wide, 
risk management program in the new farm bill. It has been designed to 
fit the new budget constraints, while providing a reasonable and 
sustainable safety net for cotton producers. While it is certainly not 
perfect and is not comparable to our current program, it represents the 
substantial reform necessary to provide a basis to resolve the long-
standing Brazil WTO case. It does fit the cotton industry's situation 
far better than the revenue plans designed by Midwestern interests for 
grains and oilseeds, and it preserves the marketing assistance loan, 
with modifications, that is so important to our entire industry. It is 
imperative that the Brazil case be resolved by the end of 2012 to 
eliminate any possibility that Brazil will impose the prohibitively 
high tariffs authorized by the WTO. Retaliation in the form of high 
tariffs will disrupt U.S. exports and adversely impact U.S. businesses 
across the board.
    Mr. Chairman, you and other Members of the Committee were 
successful in reforming payment limitation rules in the 2008 Farm Bill. 
Working with agricultural groups and Members of Congress not on the 
Agriculture Committee, I believe the reforms in the 2008 Farm Bill were 
equitable. I ask that the current adjusted gross income rules and 
payment limitation restrictions be continued in the 2012 Farm bill.
    In closing, I appreciate the opportunity to testify before the 
Committee today. You have difficult task before you as you attempt to 
reconcile a crisis in our Federal budget while assuring that Americans 
have an adequate, safe food supply.
    Thank you.

    The Chairman. Thank you, Mr. Burch.
    And for any of you in the audience who ever thought you 
wanted to be a witness, now comes the fun part--you get to 
answer questions from the Committee. With that, I recognize 
myself for 5 minutes.
    Mr. Brantley, some have suggested that using a reference 
price established in law would result in producers planting for 
the government program. Those same folks suggest that a 5 year 
Olympic average price in a revenue program has no impact on 
current planting decisions.
    Can you elaborate on the factors you consider when you make 
your cropping decisions and the role that reference prices 
would play in those decisions?
    Mr. Brantley. The role of the reference price as I see it, 
or the view that I see that I looked at last fall, determining 
whether we would grow more acres than is sustainable here in 
Arkansas, is just not feasible. The $13.98 target price, that 
figure that was given to us last fall, in all reality, you have 
to look at it on a whole-farm basis, 85 percent times your 
countercyclical yield, which in Arkansas is about 70 percent of 
your normal yield, is well below the cost of production. So 
those that say the target price reference price in that area, 
the $13.98, would increase production are just, in my opinion, 
dead wrong. Our true cost of production is in the $14.00 range. 
If you average that across all the U.S., the Olympic average, 
if commodity prices were high for a long time and then prices 
fell, yes, that would work. But what if it is the other way 
around.
    I can see the Olympic averages creating more acres than the 
target price.
    The Chairman. So the goose should always be careful when 
talking about the gander, huh?
    Mr. Veach, I understand that Arkansas Farm Bureau recently 
made a decision to dissent from the American Farm Bureau 
policy. Can you talk about some of the reasons that the 
Arkansas Farm Bureau determined it could not support the SSRP 
proposal? And to your knowledge, along with that, is the 
Arkansas Farm Bureau the only state that disagreed with this 
approach?
    Mr. Veach. Yes. The SSRP program is a deep loss crop 
insurance program that triggers on regions. And that just 
really does not work, especially for some of our commodities 
here in Arkansas. We wanted the opportunity to speak to this 
Committee and to our Congressional delegation on what we feel 
like is a more workable plan for Arkansas agriculture, taking 
into consideration those regional and commodity differences. 
And to do that, it was for us to dissent from the American Farm 
Bureau policy that is supporting the deep loss regional trigger 
approach. And so we feel like that we need a more diverse type 
of farm bill that will take into consideration these regional 
and commodity differences.
    Now we did not take that lightly. We deliberated on that 
for a good long while, but we felt like it was extremely 
important, for us to represent the producers in our state, that 
we would dissent from that program.
    The Chairman. Fair enough.
    Mr. Combs, regarding the package the Committee developed 
last fall, I remember reading an article where it was suggested 
that a price option would cause rice acres in this country to 
explode by 5 or 10 million acres. Do you agree with that 
assessment? And why?
    Mr. Combs. I think that article was put out by people 
talking from their position and that was a different commodity 
and, no, it is not going to result in an explosion. Like Mr. 
Brantley pointed out, the plan that you had put forward, the 
Committee put forward, only offered that price protection on 85 
percent of your planted acres and then on historic yields. So, 
farming is a lot--and the machinery business--if it was easy, 
everybody would be doing it. And that is not the case with this 
program.
    The Chairman. Fair enough.
    Mr. Burch, based on the analysis that the peanut industry 
has done through the University of Georgia, could you discuss 
if a revenue type shallow loss program would work for peanuts?
    Mr. Burch. No, sir, it would not, on the fact that it does 
not distinguish between irrigated and non-irrigated. There is 
such a variability. On my own farm this past year, I had as 
good an irrigated yield as I have ever had at an additional 
cost. There was a 3,200 pound yield difference between my 
irrigated and dryland crop this year. So not taking that into 
consideration, it would not work.
    The Chairman. Fair enough.
    Mr. Flowers, my last question, my time is about to expire. 
Did I understand you basically to say that commodity title 
resources should follow production? That is a pretty amazing 
concept for some of the folks that we serve with back East to 
understand.
    Mr. Flowers. We had a lot of hard decisions to make, since 
cotton was kind of pointed out in the Brazil case, the target 
prices were pointed out in the case and the marketing loans. 
That is the reason we kind of came up with the STAX program to 
take care of that situation.
    The Chairman. I just could not help but note what I 
understood your comment to be, resources should follow the 
production. There are a lot of folks we serve with who want to 
use the farm bill to do everything imaginable in the way of 
directing resources. We will talk about that again in a moment.
    My time has expired. I now turn to the gentleman from 
Texas, who actually has fewer trees than I have in the 3rd 
District of Oklahoma. Mr. Neugebauer for 5 minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman, and thank you for 
having this hearing. I appreciate Mr. Crawford encouraging the 
Committee to come to Arkansas, he is a great Member and I am 
enjoying serving with him. We appreciate you all sending him to 
help us do some great work for our country.
    You know, one of the things since I have been in Congress, 
this is my fifth term, I have been working a lot on crop 
insurance. In fact, in the 2008 Farm Bill, we had a concept 
that we had approved and passed out of our Committee. 
Unfortunately, the Speaker of the House, Ms. Pelosi, decided to 
take that out of the farm bill. But I have reintroduced what is 
called the Crop Risk Options Plan Act of 2011 and some of you 
may or may not have seen that. And basically it talks about 
taking a GRP or a GRIP policy and putting it on top of a multi-
peril to give producers some flexibility. Because one of things 
I know, as Mr. Brantley pointed out, farming today is big 
business. And in order to be competitive in the global economy, 
unfortunately, it is more and more difficult for smaller 
producers to do that. And so as you get into these large 
operations, very diverse, it takes more and more capital and 
more and more loans to do that. In order to make those 
businesses viable, we need a very strong and effective crop 
insurance, risk management for our producers.
    One of the things that I think is an important part of that 
is having the flexibility. For example, talking about the 
regional trigger, the trigger for my crop bill is a county 
trigger, which we think is more reflective of the conditions, 
and not the region. Depending on how you draw geographical 
regions, the ability to have different conditions within those 
regions is very probable. Generally in a county, I think it is 
easier to be more reflective.
    One of the things I wanted to talk about, because we keep 
hearing the price, some kind of a price protection, yield 
protection, within these risk management policies. One of the 
things we are going to be faced with is we are going to be 
given a certain amount of money, our Committee is, to craft a 
farm policy. So what I want to do is leave as much flexibility 
in there. So one of the things I wanted to ask you to comment 
on is when we look at being able to add some additional 
features to this, obviously that increases the scoring. So 
should we make, for example, some of these things options 
instead of a mandatory part of the policy. So if a producer 
wanted to buy price protection, for example, he could choose--
he or she could choose to do that or not. And that would impact 
the cost of the policy, and the same way with some additional 
yield protection. Should that be something that we are thinking 
about or considering as we begin to look at the crop insurance? 
And what is your feeling about, for example, having a county 
trigger?
    Mr. Brantley.
    Mr. Brantley. I believe an option is exactly what we are 
asking for, I think all of us would agree here at this panel. 
An option of a price over revenue is exactly what we need.
    Help me here, Mr. Combs, if you do not mind.
    Mr. Combs. Well, we would like the price protection and 
then also our industry is trying to develop a formula that 
would also offer input cost protection. And it would be--and 
the more options you can have on it, in theory, the lower it 
should score. I mean if the producer wanted that level of 
coverage, they should be able to purchase it. But we have to 
have the help of RMA to get these policies approved. You know, 
we have been beating our head against the wall for 4 years and 
we had two concepts and we still have not gotten them approved.
    Mr. Neugebauer. That is one of my frustrations as well. The 
thing about what we set out to do with our bill was to take 
existing products so we did not have to go out in the field and 
test those. So it is basically just giving them the authority 
to take existing products basically and combine those.
    So, when you start talking about those options, obviously 
it increases the cost of those, but when I look around this 
table we see a lot of folks that have different commodities. 
And so what we want to be able to do is allow you to determine, 
for those particular commodities, what is the best option for 
you. And not necessarily tie you into one policy to try to 
manage the total farm operation.
    Mr. Combs. I understand that, but existing crop insurance 
products have not been successful in the rice industry. That is 
the point that we would drive home.
    Mr. Neugebauer. Those are the changes that I think we are 
going to need to look at. So thank you very much, Mr. Chairman.
    The Chairman. The chair now recognizes the gentleman from 
Arkansas, Mr. Crawford, for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman.
    Mr. Veach, I want to direct my first question to you. As a 
result of budget cutting and political environment and the 
Brazilian WTO case against cotton, the cotton industry came up 
with the STAX plan to serve as a primary risk management tool 
for cotton growers. Can you give some detail as to whether this 
type of coverage would work for Arkansas cotton producers?
    Mr. Veach. I think that the STAX program, for a lot of the 
cotton industry, cotton producing areas, would work very well. 
And it would work in Arkansas as well, but I think with the 
amount of irrigation that we have and how we mitigate that risk 
in irrigation, that we need a little more protection in price. 
I think that one of the best ways of doing that is if we have 
these options. It has to be a viable option, and I think that 
producers could decide if that program is the one that works 
best for them, or if more of a price-based type program would 
work better for them. I think those options have to be very 
viable options. It cannot be just an option. It has to be one 
that really provides a safety net. If we have options to 
provide a safety net, then we have the opportunity to pick 
which one of those works best for that particular commodity on 
that particular type farmer's ground.
    I think that we are not looking at great diversity in 
programs. I do not think we can have a whole large assortment 
of programs to pick from, but I think that we can--if the 
Committee can come to some--where that we can have very viable 
options, a couple, two or three, that producers can use the 
choice to do that.
    But I think the STAX program works very well for a lot of 
producers, but some maybe would rather have more price 
protection.
    Mr. Crawford. Each of the witnesses gave some comments 
about crop insurance and particularly as it applied to rice and 
some specific issues there. I want to switch gears just a 
little bit and talk about conservation.
    And I will kind of direct this to each of you, but I will 
start with Mr. Brantley. This Committee is going to need to 
take a serious look at lowering the acreage cap with the CRP 
and also deciding the future purpose of the program. Given the 
increased demand for grain, high crop prices, and increasing 
land values, what do you see as the future role of CRP and what 
changes would you like to see in the program?
    Mr. Brantley. I do not participate in the CRP program, so 
to suggest changes, I do not know that I can answer that. But 
conservation programs are very important to me and my family on 
our farm, EQIP being the number one program. Water, we talk 
about irrigation here on this panel, water storage is critical 
for a rice crop here in Arkansas, so the EQIP program, I think 
for me, should be first and foremost when we talk about 
conservation programs. I do realize CRP is a big part of 
conservation, plays a very important role. But I could not make 
any recommendations today.
    Mr. Crawford. Mr. Combs.
    Mr. Combs. I share Dow's thoughts. I mean our farms 
participate in EQIP and the Conservation Security Program and 
the Migratory Bird Habitat Program and WRP. So we are in four 
conservation programs and I think they are very important for 
both our farms for conservation and then for other stakeholders 
in the country, because they provide benefits for water fowl 
and wildlife and other things.
    But CRP is not a big deal in the Delta and so I feel more 
confident to comment on these programs than I would be on the 
CRP.
    Mr. Crawford. Okay. And the reason I used CRP as an 
example, just strictly as an example, it has just been around 
for what, 25 years now, and so in general terms----
    Mr. Combs. It is a big deal to a lot of people, it is just 
not on--we are pretty tied to the NRCS office in our county, 
but we are just not as much on CRP.
    Mr. Crawford. Mr. Flowers, any input on that?
    Mr. Flowers. CRP has been a good product in the Mississippi 
Delta. There has been a lot of land going into CRP and WRP. 
Like everybody else, we are 80 percent irrigated and a lot of 
the land that is not irrigated has been put in CRP for 
wildlife. Something I would like to see, we are starting to 
have some water issues and we want to conserve our water for 
future generations and one thing I would like to see is maybe 
developing a CRP program where we could impound water and use 
that for irrigation.
    Mr. Crawford. Okay.
    Mr. Flowers. EQIP has been very important to our area also.
    Mr. Crawford. Excellent. Mr. Burch, last word on that.
    Mr. Burch. I just do not see CRP as being critically 
important in a time that we are needing to maximize our 
production to feed this world.
    Mr. Crawford. Excellent. Thank you. I yield back.
    The Chairman. The gentleman yields back.
    The chair now turns to the gentleman from Indiana for his 5 
minutes.
    Mr. Stutzman. Thank you, Mr. Chairman, and I want to thank 
each of you for being here today.
    Being a fourth generation farmer from Indiana, it is great 
to sit here and listen to you all and your stories and your 
experiences. And I believe that we in agriculture have a great 
opportunity to lead in our nation's capital. And I appreciate 
the Chairman's leadership on leading in the negotiations last 
year with the Committee, the super committee, that was designed 
to fix our country's problems, which I believe the Chairman did 
the right thing in putting a bill together and crafting a bill 
and being prepared. That is what farmers do, we are always 
prepared for the worst and we are always trying to be prepared 
for the best as well. But we focus on the worst probably more 
than anything.
    I have just a couple of questions, and really for any of 
you, because you are--two of you are from Arkansas and the 
others from other parts of the South here. You know, being a 
farmer, I remember going into the bank with my father and I 
always hated sitting on the farmer's side of the desk. I always 
wanted to be on the banker's side. Well, today, I would rather 
be on the farmer's side. The bankers, they have kind of taken 
it on the chin lately.
    Has credit availability changed for you all and how have 
your experiences been with access to credit and the experiences 
that you have. And what you may see with your neighbors around 
your communities and the challenges, what experiences are 
people facing right now in your communities.
    Maybe we can start with Mr. Burch and just go right down 
the line.
    Mr. Burch. Well, in my area it is pretty much like I am 
sure it is all over the United States, the people that do not 
need to borrow have ready access to money. And the people that 
need it are having trouble getting it. So it just depends on 
your collateral situation. It is very tight for people that 
have marginal operations.
    Mr. Stutzman. Mr. Flowers.
    Mr. Flowers. I am a director on a bank and it is really 
important for us, we would like to see some kind of crop 
insurance that the farmers in our area can afford and take 
advantage of. I know the banks want to make sure that they have 
pretty good collateral and stuff. Our problem is we do not have 
the deep losses, but the losses between the deep losses and 
what it actually costs to produce is where we have our 
problems. So that is kind of what we look at. So that would be 
very helpful if we had some kind of coverage that would take 
care of that.
    Mr. Combs. Typically in agriculture, credit is available 
when times are good. And that is what we are seeing now. And 
so, credit will tighten up when the prices decline and that is 
why the farm bill is so important, because when credit does 
tighten up, we need protections that can be offered in farm 
policy in order to ensure that that credit still flows. I am 
not saying that there is no lack of credit right now, because 
there could be in individual cases, but everybody is wanting to 
lend money to farmers today, compared to the late 1990s.
    Mr. Veach. I think that if direct payments are done away 
with, it is going to affect the lending quite a bit, especially 
loans to rice producers and cotton producers in the fact that 
you are going to lose what is a guarantee up front, but you are 
going to have a certain amount of dollars coming in on that 
operation. And those producers will have to be able to show 
through their cash flow and the collateral that they can pay 
that loan back without that direct payment. And that computes 
out to $100 an acre or so for rice and $30 and $40 an acre on 
cotton. And if you compute that out in rice in the State of 
Arkansas on actual planted acres, you are looking at probably 
at least close to $50 an acre now that you are going to have to 
show to your lender that you can get by without that. And that 
is going to be a big factor in getting loans.
    Mr. Brantley. I would echo Mr. Veach's comments. The loss 
of direct payments will make it very difficult. One thing to 
note is how important our community banks are versus our larger 
banks. The community banks understand us, they know us well, 
they know farming, they know the risks. It is vitally important 
that we keep those community banks in our neighborhoods and 
keep them around versus large corporate banks who just strictly 
look at the number and not necessarily a name or understand the 
risk.
    Mr. Stutzman. Mr. Brantley, real quick, we have the warning 
light here, but could you give us a quick example. Rice seems 
to be the one that you are most concerned about, across the 
table here, about protection. Is that right? Cotton, Mr. 
Flowers mentioned cotton as well. I mean, do you think there is 
room for us focusing on those two particular crops? Do the 
other crops need the direct payment program behind them?
    Mr. Brantley. Rice is the most important on our farm. Yes, 
I think direct payment would fit my farm best for all crops, 
but rice being the most important because it is the most 
politically traded commodity in the world, compared to the 
other commodities.
    Mr. Stutzman. Right. Thank you.
    The Chairman. The chair will yield to the gentleman from 
Indiana 30 seconds, and would the gentleman yield to the 
Chairman?
    Mr. Stutzman. Yes, sir.
    The Chairman. Mr. Flowers, you said you are on the board of 
directors of a bank. My bankers tell me in Oklahoma, and I 
assume it is the same across the country, that they are in a 
more rigorous period of examination by the bank examiners. Long 
gone are the days when it was just a simple process. It is now 
a really horrendous process and that in every farmer's loan 
file, not only do you have copies of participation in the farm 
bill, but you also have to have all your crop insurance records 
and all those things to prove that you are covering all your 
bases. Is that your observation?
    Mr. Flowers. That is definitely, we are going through more 
and more rigorous examinations in the bank. First thing we look 
at is what the direct payments are, what crops have you already 
sold and what kind of insurance you have.
    The Chairman. So it does not necessarily matter how great 
your record is and how much confidence your banker has in you. 
If he or she does not have all of those records in your file to 
show the examiner, then the examiner comes down on the loan 
officer, which causes complications. So for a variety of 
reasons, these tools are absolutely necessities. Correct, sir?
    Mr. Flowers. That is correct. The days of just knowing who 
you are dealing with are over. You have to have everything 
documented and every ``i'' dotted and crossed every ``t''. You 
are correct.
    The Chairman. Absolutely. Any additional questions for this 
panel?
    [No response.]
    The Chairman. Seeing no additional questions from the 
Committee for the panel, I would like to thank you for your 
insights and your expertise. And you are dismissed, gentlemen.
    As they are stepping away from the table and our next group 
of witnesses in panel two are preparing to come forward, I 
would like to introduce them. Mr. David C. Hundley, rice, corn, 
soybean producer, Jonesboro, Arkansas; Mr. Mike Freeze, 
aquaculture producer, Keo Fish Farm, Keo, Arkansas; Mr. Dan 
Stewart, cow/calf producer, Mountain View, Arkansas; Mr. John 
E. Owen, rice, soybean, corn, and cotton producer, John and 
Annie Owen Farms, Rayville, Louisiana; and Mr. Walter Corcoran, 
Jr., cotton, corn, peanut, soybean, grain sorghum, and cow/calf 
producer, Eufaula, Alabama.
    As they are setting up, once again, I thank the previous 
panel for those very thoughtful statements and very insightful 
answers to our questions. That is what this is all about.
    Swing that microphone around towards you there, Mr. 
Hundley, and whenever you are ready, you may begin.

    STATEMENT OF DAVID C. HUNDLEY, RICE, CORN, AND SOYBEAN 
                    PRODUCER, JONESBORO, AR

    Mr. Hundley. Chairman Lucas, Congressman Crawford, and 
other Members of the Committee and guests, my name is David 
Hundley. I am a producer from Bay, Arkansas and I am also the 
general manager for JHM, Inc., a third generation diversified 
agricultural business that includes a cotton gin and a grain 
elevator located in the First District. Thank you for holding 
this hearing at my alma mater, Arkansas State University and in 
the First Congressional District of the great State of 
Arkansas, and for this opportunity to testify before you 
regarding farm policy issues.
    According to a recent study released by the University of 
Arkansas, agriculture is the single largest industry in the 
State of Arkansas, and the First Congressional District is by 
far the most diverse in the state with several different 
diverse crops being produced here, all contributing over $17 
billion of value added to the Arkansas economy. That is 
17 cents of every dollar that is generated in Arkansas of value 
added. The contribution of the agriculture sector as a 
percentage of GDP in Arkansas is greater than in any other 
contiguous state, as well as the average for the Southeast 
region of the United States. The Arkansas agriculture sector, 
as a percentage of GDP is 10.73 percent and Arkansas is in the 
top ten states in the production of ten agricultural 
commodities.
    An economically viable agriculture is essential for the 
United States of America to remain the greatest country in the 
world. The farm bill should be written for the good of the 
country and not for the purpose of garnering votes for re-
election. In my opinion, we need smart policy that meets the 
following criteria:
    The 2012 Farm Bill should recognize the contribution of the 
American farmer and work to preserve the farmer and farm family 
by providing tools to manage risk, access credit, and ensure 
the ability to create and maintain our farming population.
    Farm programs should not favor the production of one 
commodity over another. Farm programs should work for all 
commodities and protect farmers against the unique risks 
associated with each commodity and various methods of 
production, such as irrigated production.
    Farm programs should be fair and available to all producers 
regardless of size, commodity grown, income, or business 
structure. Means testing is not a fair or effective policy. 
Setting such tests would be detrimental to the family farms of 
Arkansas.
    The farm bill should help farmers deal with the myriad 
regulations that they currently face from multiple government 
agencies. Many existing regulations put American producers at a 
disadvantage to their foreign counterparts. On environmental 
issues, farmers are land stewards that should be recognized for 
their efforts to preserve the land for production and 
conservation. Incentives to preserve the land work.
    Congress should recognize that farmers receive very little 
funding when compared to the nutrition components of the farm 
bill. Any increase in funding for nutrition programs should not 
be offset by cutting programs dedicated to American farmers. We 
cannot bite the hand that feeds us.
    Risk management tools should be uniquely tailored for each 
crop. A one-size-fits-all program will not work, especially in 
this region of the country. We need risk management tools for 
protection against all risk including yield loss, price 
declines, and input cost spikes. Without such a safety net, 
lenders will not be willing to risk capital and credit will not 
be available for farmers to operate.
    Today, I am respectfully asking that we lay aside partisan 
politics and engage the great base of knowledge and skills 
possessed by the American farmer to craft a sound farm policy 
that is based on real economic principles. While most farmers 
are supportive of the current farm bill commodity programs, it 
is clear that Congress wants to transition to a new safety net 
risk management approach and away from direct payments, 
regardless of the underlying commodity price. We need a new 
safety net risk management approach. I believe the safety net 
programs, including the direct payment program should be tied 
to actual production costs of in-year production. Safety nets 
should offer less in the good years and more in the lean years. 
It needs to be a program that promotes efficiency to growing 
progressive farmers, while not ignoring small family farms who 
garner that same efficiency by engaging the entire family and 
utilizing off-farm income. We are all American farmers and 
neither should be admonished or admired through class warfare 
more or less than the next.
    In summary, the producers and citizens of Arkansas require 
a strong agriculture industry to provide for their existence 
and to contribute to the strength of American agriculture. I 
believe that the entire country would be better served if the 
base of knowledge and skills of the American farmer were 
engaged in a serious discussion about the best ways to 
construct a new out-of-the-box approach to really sound farm 
policy. Their very existence today versus the opportunities 
that Mother Nature provides on an annual basis is testament to 
our ability to constantly adapt on a minute's notice. The 
greatest threat today remains the monopolization of all the 
industries that we as farmers rely on to purchase our daily 
inputs. These monopolies have the ability to reduce their per 
unit cost while at the same time the general public calls for 
American agriculture to remain small family farmers.
    Mr. Chairman, it has been my honor to be part of this 
discussion and I want to thank you for holding this hearing in 
the First Congressional District of the great State of 
Arkansas.
    [The prepared statement of Mr. Hundley follows:]

    Prepared Statement of David C. Hundley, Rice, Corn, and Soybean 
                        Producer, Jonesboro, AR
    Chairman Lucas, Congressman Crawford, other Members of the 
Committee and guests, my name is David Hundley. I am a producer from 
Bay, Arkansas and I am also the General Manager for JHM, Inc. a third 
generation diversified agricultural business that includes a cotton gin 
and grain elevator located in the First District. Thank you for hosting 
this hearing in the First Congressional District of the Great State of 
Arkansas, and for the opportunity to testify before you regarding farm 
policy issues at my Alma Mater--Arkansas State University.
    According to a recent study released by the University of Arkansas, 
Agriculture is the single largest industry in the State of Arkansas and 
the First Congressional District is by far the most diverse in the 
state with cotton, grain, poultry, catfish, baitfish, livestock, sweet 
potatoes and forest products all contributing over $17 billion of value 
added to the Arkansas economy. That is 17 of every dollar generated in 
Arkansas of value added. Arkansas agriculture provides 275,435 jobs 
which is one in six of all jobs. The contribution of agriculture sector 
as a percentage of GDP in Arkansas is greater than in any contiguous 
state as well as the average for the Southeast region of the United 
States. The Arkansas Agriculture sector as a percentage of GDP is 
10.37%. Arkansas is in the top ten states in the production of ten 
agricultural commodities.
    Arkansas agriculture is responsible for generating jobs in all 20 
industries in the North American Industry Classification System used 
for economic analysis. Employment in the top five NAICS industries 
total 197,599 jobs which accounts for 72% of all jobs in Arkansas being 
generated by agriculture. The value being generated in these top five 
industries total $12,274 Million. I believe it is obvious that 
Agriculture is vital to the Great State of Arkansas as well as the 
United States of America and it is imperative that the integrity this 
industry is preserved with sound Farm Policy as there has never been a 
great nation without a strong and sound agriculture sector.
    An economically viable agriculture is essential for the United 
States of America to remain as the greatest country in the world. In my 
opinion, we need smart policy that meets the following criteria.

    1. The 2012 Farm Bill should recognize the contribution of the 
        American farmer and work to preserve the farmer and farm family 
        by providing tools to manage risk, access credit, and ensure 
        the ability to create and maintain our farming population.

    2. Farm programs should not favor the production of one commodity 
        over another. Farm programs should work for all commodities and 
        protect farmers against the unique risks associated with each 
        commodity and various methods of production, such as irrigated 
        production.

    3. Farm programs should be fair and available to all producers 
        regardless of size, commodity grown, income, or business 
        structure. Means testing is not fair or effective policy. 
        Setting such tests would be detrimental to the family farms in 
        Arkansas.

    4. The farm bill should help farmers deal with the myriad of 
        regulations that they currently face from multiple government 
        agencies. Many existing regulation put American producers at a 
        disadvantage to their foreign counterparts. On environmental 
        issues, farmers are land stewards and should be recognized for 
        their efforts to preserve the land for production and 
        conservation. Incentives to preserve land work.

    5. Congress should recognize that farmers receive very little 
        funding when compared to the Nutrition components of the farm 
        bill. Any increase in funding for nutrition programs should not 
        be offset by cutting programs dedicated to American farmers. We 
        cannot bite the hand that feeds us.

    6. Risk management tools should be uniquely tailored for each crop. 
        A one size fits all program will not work, especially in this 
        region of the country. We need risk management tools for 
        protection against all risks including yield loss, price 
        declines, revenue declines, and input cost spikes. Without such 
        a safety net, lenders will not be willing to risk capital and 
        credit will not be available for farmers to operate.

    America today is made up of largely urban society and these urban 
born, urban raised citizens take their daily food & fiber for granted. 
Most of these same urbanites take the American Agricultural system for 
granted and spend countless dollars fighting to over regulate and 
destroy the same system that sustains their daily existence. While the 
average American spends less of their disposable income than many other 
developed countries on an excellent and ample supply of food they do 
not understand that a 60 pound bushel of wheat that is worth $6 to an 
American Farmer makes approximately 100 loaves of bread which sell for 
an average of $3 per loaf. The American Media's misconception that a $1 
bushel rise in the price of wheat causes bread to increase in price by 
50% cannot be part of the policy process. Can this person be involved 
or effective in creating a sustainable viable agriculture policy? The 
average cost of the newest John Deere cotton harvester is over 
$600,000. A farmer that needs to add an additional harvester should not 
have to navigate a myriad of USDA regulations to justify its existence.
    Today I am respectfully asking that we lay aside partisan politics 
and engage the great base of knowledge and skills possessed by the 
American Farmer to craft a sound Farm Policy that is based on real 
economic principles. While most farmers are supportive of the current 
farm bill commodity programs, it's clear that Congress wants to 
transition to a new safety net risk management approach and away from 
direct payments regardless of the underlying commodity price. I believe 
safety net programs, including the direct payment program should be 
tied to actual production costs and actual in year production. Safety 
nets should offer less in the good years and not limited to an 
arbitrary limit in the lean years. It needs to be a program that 
promotes efficiency to growing progressive producers while not ignoring 
small family farms who garner that same efficiency by engaging the 
entire family and utilizing off farm income. We are all American 
Farmers and neither should be admonished or admired through class 
warfare more or less than the next.
    In summary, the producers and citizens of Arkansas require a strong 
agricultural industry to provide for their existence and to contribute 
to the strength of American Agriculture. I believe that the entire 
country would be better served if the base of knowledge and skills of 
the American Farmer were engaged in a serious discussion about the best 
ways to construct a new out of the box approach to really sound Farm 
Policy. Their very existence today versus the opportunities that Mother 
Nature provides on an annual basis is testament to our ability to 
constantly adapt on a minutes' notice. The greatest threat today 
remains the monopolization of all the industries that we as farmers 
rely on to purchase our daily inputs. These monopolies have the ability 
to reduce their per unit cost while at the same time the general public 
calls for American Agriculture to remain small family farmers.
    Mr. Chairman, It has been my honor to be a part of this discussion 
and I want to thank you for holding this hearing in the First 
Congressional District of the Great State of Arkansas.

    The Chairman. Thank you.
    Mr. Freeze, begin when you are ready, after you swing that 
microphone around--yes.

          STATEMENT OF THOMAS MICHAEL ``MIKE'' FREEZE,
     AQUACULTURE PRODUCER; CO-OWNER, KEO FISH FARM, KEO, AR

    Mr. Freeze. My name is Mike Freeze and I have been an 
Arkansas fish farmer since 1983. I am Co-Owner of Keo Fish 
Farms which has 1,300 acres of ponds in which we produce hybrid 
striped bass and sterile triploid grass carp for live sales 
nationally and internationally.
    I would like to thank Chairman Lucas and my own Congressman 
Rick Crawford and the remaining Members of the House Committee 
on Agriculture for allowing me to address you about national 
issues that impact aquaculture in the United States.
    For aquaculture facilities that ship live product 
nationally, our number one regulatory issue is the Lacey Act. 
Written in 1900 and amended numerous times, including in the 
2008 Farm Bill, the Lacey Act prohibits the international and 
interstate trafficking of illegally obtained wildlife and fish 
or parts thereof. When the Lacey Act was written, aquaculture 
was practically non-existent, yet today our domesticated fish 
are regulated as if they were taken from the wild. Of 
particular concern is that that Lacey Act elevates the 
violation of even misdemeanor state regulations to Federal 
felonies simply because over $350 of domesticated product has 
entered interstate commerce. Penalties for a Lacey Act 
violation begin at $100,000 and 4 months incarceration in a 
Federal penitentiary. This scenario is analogous to a $50 
speeding ticket being elevated to a $100,000 speeding ticket 
simply because you are driving on an interstate highway.
    I am enclosing with my written testimony a copy of a report 
by the National Agricultural Law Center entitled, Aquaculture 
and the Lacey Act, in which author Elizabeth Rumley states, 
``The Act should be amended to exempt domestically produced 
aquatic species.''
    Next, I would like to talk to you about aquaculture's 
reliance upon the services provided by USDA/APHIS Wildlife 
Services and Veterinary Services. Fish-eating birds are 
protected by the Migratory Bird Treaty Act and Wildlife 
Services' verification as to the intensity and degree of bird 
depredation at a particular aquaculture facility is a 
requirement for U.S. Fish & Wildlife Service to issue a Bird 
Depredation Permit to that facility. It would be impossible for 
the private sector to address these depredation issues without 
Wildlife Services' direct involvement.
    Veterinary Services animal health inspection and 
certification allow America's aquaculturists to market their 
live aquatic animals nationally and internationally. Once 
again, it is impossible for the private sector to address such 
health certification issues that are codified in the national 
and international law as requiring a Veterinary Services' 
health certificate.
    I understand in this time of budgetary constraints that 
tough decisions have to be made. But our industry should only 
have to take their proportional share of any funding decreases. 
In the case of Wildlife Services, the entire aquaculture line 
item of $1,063,000 in the Fiscal Year 2013 President's budget 
was deleted at the request of APHIS without any stakeholder 
input.
    As you probably know, imported seafood contributes 
significantly to our national trade deficit and reducing USDA 
support to our industry will only cause this $10 billion 
imbalance to increase.
    Catfish farming and processing is a significant part of the 
American aquaculture industry. The last several years have been 
challenging for catfish producers and processors. Higher input 
costs are impacting the industry and reducing its ability to 
meet demand. According to USDA statistics, catfish processing 
and overall fish inventory are down 35 and 25 percent 
respectively from the previous year. While there are multiple 
insurance products and Federal programs to protect crops and 
livestock from market fluctuations, the catfish industry lacks 
a tool to reduce the risk of volatility caused by rising input 
costs or depressed market values.
    I would urge the Committee to consider instructing the USDA 
Risk Management Agency to include catfish and other food fish 
within the Livestock Gross Margin and Livestock Risk Protection 
insurance programs. These insurance programs allow farmers and 
ranchers to purchase insurance policies to protect against 
price and input cost volatility.
    The 2008 Farm Bill included instructions for the USDA to 
establish a voluntary fee-based inspection and grading program 
for catfish. The USDA catfish inspection rule remains a top 
priority for the catfish industry and the American public. The 
Committee's past and continued support on this issue is greatly 
appreciated.
    USDA has undertaken a thorough process for the 
implementation of this new responsibility. The comment period 
closed on June 24, 2011, and of the 280 comments posted, 84 
percent urged FSIS to include all imported and domesticated 
catfish in the new regulations currently under consideration. A 
broad definition of catfish is imperative to effective 
inspection of catfish and catfish like products. Should USDA 
make the unwise decision of including the more narrow 
definition of catfish, more than 95 percent of all catfish like 
imports will remain uninspected upon entry into the U.S. 
market. Gentlemen, this is not a trade issue, this is a food 
safety issue. And the American public deserves the 
implementation of this rule at the earliest possible date, 
using the broad definition, which includes the three families 
typically consumed as food.
    Additionally, the aquaculture industry has serious concerns 
about FDA's proposed rule that would significantly change 
regulations regarding unapproved drugs found in food products. 
The FDA released this proposed regulation on January 25, that 
would provide a simplified approval process for persons 
requesting the import of food items containing residues of 
animal drugs that are unapproved in the U.S. I believe that 
U.S. consumers should have confidence that food products are 
safe. There is great concern that this proposed rule signals a 
move by the Administration towards allowing drugs to be used by 
foreign producers that are prohibited in the United States. And 
I would strongly urge the Committee to oppose this move by the 
Administration.
    Finally, one issue that impacts all farmers is the closing 
of county FSA offices across the United States according to 
criteria established in the 2008 Farm Bill. While the closing 
of most of these offices is justified, occasionally a county 
office with a moderate to heavy workload meets the closing 
criteria while an adjacent office with a lighter workload does 
not. Recent incentives for FSA employees to retire just prior 
to the determination of which FSA county offices met the 
closing criteria has exacerbated this issue. Therefore, I would 
respectfully ask the Committee to consider enacting emergency 
legislation that would allow each state FSA committee to 
exchange the closing of one county office for another county 
office, as long as the total number of offices closed within 
that state remains the same.
    Thank you, gentlemen.
    [The prepared statement of Mr. Freeze follows:]

   Prepared Statement of Thomas Michael ``Mike'' Freeze, Aquaculture 
               Producer; Co-Owner, Keo Fish Farm, Keo, AR
    My name is Mike Freeze and I have been an Arkansas fish farmer, 
since 1983. I am Co-Owner of Keo Fish Farm along with my business 
partner, Mrs. Martha Melkovitz. Our farm has 1,300 acres of ponds in 
which we produce hybrid striped bass and sterile triploid grass carp 
for live sales nationally and internationally.
    I would like to thank Chairman Lucas, my own Congressman Rick 
Crawford and the remaining Members of the House Committee on 
Agriculture for allowing me to address you about national issues that 
impact aquaculture in the United States.
    For aquaculture facilities that ship live product nationally, our 
number one regulatory issue is the Lacey Act. Written in 1900 and 
amended numerous times, including in the 2008 Farm Bill, the Lacey Act 
prohibits the international and interstate trafficking of illegally 
obtained wildlife and fish or parts thereof. When the Lacey Act was 
written, aquaculture was practically non-existent, yet today our 
domesticated fish are regulated as if they were taken from the wild. Of 
particular concern, is that the Lacey Act elevates the violation of 
even misdemeanor state regulations to Federal felonies simply because 
over $350 of domesticated product has entered interstate commerce. 
Penalties for a Lacey Act felony violation begin at $100,000 and 4 
months incarceration in a Federal penitentiary. Thus, what may be a 
misdemeanor state violation in both of the two states involved, is 
immediately elevated to a Federal felony offense, simply because state 
boundaries were crossed. This scenario is analogous to a $50 speeding 
ticket being elevated to a $100,000 speeding ticket simply because you 
are driving on an interstate highway.
    The U.S. Fish and Wildlife Service is one of the agencies that 
enforce the Lacey Act and their enforcement division has historically 
applied this act to the international and interstate movement of 
private aquacultural products. In part this is because the U.S. Fish 
and Wildlife Service does not recognize the private ownership of 
aquacultural products. In March of 1990, a USFWS enforcement memorandum 
placed a low priority on using the Lacey Act against aquacultural 
producers except in instances where disease transmission or non-
indigenous fish species were involved. Unfortunately, this memorandum 
has long since been forgotten. I am enclosing a copy of a report by the 
National Agricultural Law Center entitled ``Aquaculture and the Lacey 
Act'' in which author, Elizabeth Rumley states: ``The Act should be 
amended to exempt domestically produced aquatic species''.
    Next I would like to inform you about aquaculture's reliance upon 
the services provided by USDA/APHIS Wildlife Services and Veterinary 
Services. Wildlife Service's assistance with wildlife depredation at 
aquaculture facilities is essential because such wildlife are often 
protected by Federal regulations. In the case of avian depredation, 
piscivorous birds are protected by the Migratory Bird Treaty Act and 
Wildlife Services verification as to the intensity and degree of avian 
depredation at a particular aquaculture facility is a requirement for 
the U.S. Fish & Wildlife Service to issue a Bird Depredation Permit to 
that facility. It will be impossible for the private sector to address 
these depredation issues without Wildlife Services' direct involvement.
    Veterinary Services aquatic animal disease inspection and control 
programs are vital to protecting American aquaculture. Veterinary 
Services' international programs and their interactions with OIE member 
nations ensure that our aquacultural products are regulated in a 
scientific manner. Without Veterinary Services essential animal health 
inspections and certifications, America's aquaculturists will not be 
able to market their live aquatic animals nationally and 
internationally. The negative economic impacts from such a loss of 
business may actually cause many aquacultural businesses to fail. Once 
again, it will be impossible for the private sector to address such 
health certification issues that are codified into national and 
international law as requiring a Veterinary Services' health 
certificate.
    Fish farmers have worked for many years with USDA and Congress to 
secure line item aquaculture funding for both of these agencies as only 
these two agencies can provide the essential services listed above. We 
understand that in this time of budgetary constraints that tough 
decisions have to be made, but our industry should only have to take 
their proportional share of any funding decreases. In the case of 
Wildlife Services, the entire aquaculture line item of $1,063,000 in 
the FY 2013 President's Budget was deleted at the request of APHIS, 
without any stakeholder input.
    As you probably know, imported seafood contributes significantly to 
our national trade deficit, and reducing USDA support to our industry 
will only cause this imbalance to increase. Currently, 84% of U.S. 
seafood is imported and the U.S. seafood trade deficit has doubled 
since 1989, reaching $10 billion in 2010. Therefore, I am respectfully 
asking your assistance in restoring aquaculture's line item funding for 
these two agencies back to historic levels.
    Catfish farming and processing is a significant part of the 
American aquaculture industry. The last several years have been 
challenging for catfish producers and processors. Similar to other 
sectors of the livestock industry, catfish producers are faced with 
extraordinarily high feed and energy prices. These higher input costs 
are impacting the industry and reducing its ability to meet demand. 
According to USDA statistics, catfish processing and overall fish 
inventory are down 35 and 25 percent respectively, from the previous 
year's reporting. While there are multiple insurance products and 
Federal programs to protect crops and livestock from market 
fluctuations, the catfish industry lacks a tool to reduce the risk of 
volatility caused by rising input costs or depressed market values.
    I would urge the Committee to consider instructing the USDA Risk 
Management Agency (RMA) to include catfish and other food fish within 
both the Livestock Gross Margin (LGM) and Livestock Risk Protection 
(LRP) insurance programs. These insurance programs allow farmers and 
ranchers to purchase insurance policies to protect against price and 
input cost volatility. Catfish and other food fish farmers would 
benefit from access to these existing insurance products, allowing them 
to purchase a product to protect against unexpected increases in feed 
costs or drops in market pricing.
    In addition, ``The Food, Conservation and Energy Act of 2008'' 
included instructions for the USDA to establish a voluntary fee based 
inspection and grading program for catfish. The USDA catfish inspection 
rule remains a top priority for the catfish industry and the American 
public. The Committee's past and continued support on this issue is 
greatly appreciated. According to Import Refusal data and also FDA 
Import Alerts, certain drugs and chemicals have been found in catfish 
imported from China, Thailand and Vietnam and have resulted in the 
following import refusals for Fiscal Year 2010:

------------------------------------------------------------------------
               Country                   Refusals for Fiscal Year 2010
------------------------------------------------------------------------
                  China                                    22
               Thailand                                     4
                Vietnam                                    30
------------------------------------------------------------------------

    USDA has undertaken a thorough process for the implementation of 
this new responsibility, including extensive public comment. The 
comment period closed on June 24, 2011, and of the 280 comments posted 
on the USDA's Food Safety and Inspection Service (FSIS) official 
comment site, 84 percent, or 234 postings, urged the agency to include 
all imported and domestic catfish in new regulations currently under 
consideration by FSIS. The proposed rule offers two options for the 
definition of catfish and seeks public comment. One option is to define 
``catfish'' as including all species in the order Siluriformes, with 
the three families typically consumed as food, including Ictaluridae, 
Pangasius and Clariidae. A broad definition of catfish is imperative to 
effective inspection of catfish and catfish-like products. Should USDA 
make the unwise decision of including the more narrow definition of 
catfish, more than 95% of all catfish-like imports will remain 
uninspected upon entry into the U.S. market. This is not a trade issue, 
this is a food safety issue and the American public deserves the 
implementation of this rule at the earliest possible date, using the 
broad definition, which includes the three taxonomic families of fish 
that are typically consumed as food.
    Additionally, the aquaculture industry has serious concerns about 
FDA's proposed rule that would significantly change regulations 
regarding unapproved drugs found in imported food. The FDA released a 
proposed regulation on January 25th that would provide a simplified 
approval process for persons requesting the import of food items 
containing residues of animal drugs that are unapproved in the U.S. The 
industry agrees with the FDA's advisory committee, the Veterinary 
Medicine Advisory Committee, that any drugs used to treat animals that 
Americans will consume should be based on food safety protections 
currently employed by FDA to regulate drugs used by U.S. farmers. I 
believe that U.S. consumers should be confident that the foods they eat 
are safe. There is great concern that this proposed rule signals a move 
by the Administration towards allowing drugs to be used by foreign 
producers that are prohibited in the United States. I would strongly 
urge the Committee to oppose this move by the Administration.
    Finally, one issue that impacts all farmers is the closing of 
county FSA offices across the United States according to criteria 
established in the 2008 Farm Bill. While the closing of most of these 
offices is justified, occasionally a county office with a moderate to 
heavy work load meets the closing criteria, while an adjacent office 
with a lighter work load does not. Recent incentives for FSA employees 
to retire just prior to the determination of which FSA county offices 
met the closing criteria has exacerbated this issue. Therefore, I would 
respectfully ask that the Committee consider enacting emergency 
legislation that would allow each State FSA Committee to exchange the 
closing of one county office for another county office as long as the 
total number of offices closed within that state remains the same.
                               Attachment
National Agricultural Law Center, University of Arkansas
An Agricultural Law Research Project
Aquaculture and the Lacey Act
by
Elizabeth R. Springsteen
March, 2010
www.NationalAgLawCenter.org
A National AgLaw Center Research Publication
Aquaculture and the Lacey Act
Elizabeth R. Springsteen
Staff Attorney
National Agricultural Law Center
    Aquaculture includes the cultivation of aquatic species for human 
consumption as well as for recreational or ornamental purposes. The 
practice has a long history, tracing back through ancient Chinese 
records indicating that carp was raised more than 4,000 years ago and 
hieroglyphics in the tombs of the Pharaohs describing tilapia farming 
in ancient Egypt. However, fish culture in the U.S. has a much more 
limited history, beginning in the mid 1800s when Federal and state 
hatcheries were built to raise sportfish species to stock public and 
private waters. Attempts to commercialize aquaculture for food purposes 
did not begin until the 1950s, with channel catfish farming in the 
Mississippi Delta region. From those small beginnings it has become an 
extensive industry, bringing in yearly nationwide revenue of $1.5 
billion, according to the 2007 Census of Agriculture.
    The practice of aquaculture is regulated at various levels of 
government, with state and local authorities generally regulating 
activities and issuing permits dealing with zoning, building, land and 
water use, waste discharge, and aquaculture production practices and 
species. Not surprisingly, each state's division of regulatory 
responsibility and authority among their agencies or offices, as well 
as the resulting regulations themselves, are all very different. They 
have each been influenced by unique state socioeconomic histories and 
the ecological differences between states. As a result, state 
aquaculture regulation is a bewildering mosaic of species regulations, 
with little to no consistency between geographic locations.
    At the Federal level, agencies responsible for different areas of 
regulation include the FDA, USDA, EPA, Fish and Wildlife Service 
(``FWS''), Army Corps of Engineers and National Oceanic & Atmospheric 
Administration (``NOAA'').
History and Provisions of the Lacey Act
    One major statute with the potential to severely affect aquaculture 
is the Lacey Act, 18 U.S.C.  41-48, a Federal statute passed in 1900 
to protect wildlife. It was originally intended to combat hunting to 
supply commercial markets, the interstate shipment of unlawfully killed 
game, the killing of birds for the feather trade and the introduction 
of harmful invasive species. The Lacey Act applies to all ``wild'' 
animals, specifically including fish and amphibians, even when those 
animals have been ``bred, hatched, or born in captivity.'' It is 
unlawful to ``import, export, transport, sell, receive, acquire or 
purchase'' any fish or wildlife ``taken, possessed, transported, or 
sold'' in violation of laws or regulations (state, Federal or foreign) 
that are fish or wildlife related. In 2008, plants were added to the 
scope of the Act.
    One of the ways in which the Lacey Act can be triggered is by the 
violation of a Federal regulation. If this happens, the offender can be 
prosecuted under the Lacey Act even if no interstate shipment takes 
place. For example, the Endangered Species Act is a Federal statute 
that protects certain species. If an individual ``transport[s], 
sell[s], receive[s], acquire[s], or purchase[s]'' a creature that has 
been ``taken, possessed, transported, or sold'' in violation of that 
law, that person may be prosecuted under either the Endangered Species 
Act or the Lacey Act--even if they do not cross a state line.
    However, the Lacey Act is also triggered when a state or Federal 
law regarding fish or wildlife is violated by a product that has been 
part of interstate commerce. Each state has its own protected, 
prohibited, restricted or approved exotic or game species lists, 
established by a state department of natural resources, fish and game, 
environmental protection or agriculture, and the creatures on the list 
can vary widely from one state to the next. For an example in this 
situation, consider Minnesota. As of this writing, in Minnesota it is 
illegal to transport ``prohibited invasive species'' on a public road, 
and violation subjects the offender to a $250 civil penalty or a 
misdemeanor (up to 90 days and/or $1,000). As a result, a company based 
in Minnesota who transports one of these species to another part of the 
state may only be prosecuted under the state law. A company based in 
another state who transports one of these species on a Minnesota road, 
however, may be prosecuted under the Lacey Act. This is important, 
especially considering the disparity between the state and Lacey Act 
penalties.
Lacey Act Penalties
    Penalties for violating the Lacey Act are severe. If an individual 
``knew'' or ``was generally aware of'' the illegal nature of the 
wildlife and the value of the wildlife was over $350, he may be 
prosecuted and convicted under the Act's felony provisions. If that 
happens, the penalty is up to 5 years in prison and/or a $250,000 fine 
($500,000 in the case of an ``organization,'' including a business).
    Misdemeanor prosecution may occur in two situations. The first is 
if the defendant takes/possesses/transports/sells the prohibited 
wildlife ``without exercising due care.'' ``Due care'' means ``that 
degree of care which a reasonably prudent person would exercise under 
the same or similar circumstances. As a result, it is applied 
differently to different categories of persons with varying degrees of 
knowledge and responsibility'' (Senate Report 97-123). Generally, due 
care requires the judge to ask him or herself if the defendant, when 
trying to follow the law, applied as much thought, planning and 
prevention as would a normal, reasonable person in their situation. 
It's important to remember that, as stated above, the amount of ``due 
care'' a person must show changes depending on their knowledge and 
responsibility level. As a result, an aquacultural producer 
transporting their products across state lines will probably be held to 
a higher standard of care than a child who is transporting his pet 
goldfish during a cross-country move.
    The second way in which a misdemeanor may be prosecuted under the 
Lacey Act is if the defendant knew about the illegal nature but the 
value of the wildlife was less than $350. It's important to note, 
however that prosecutors may aggregate, or combine, violations for 
charging purposes. Combining the violations can increase the value of 
the wildlife, and potentially elevate the offense from misdemeanor to 
felony status. Misdemeanor penalties are up to a year in prison and/or 
$100,000 fine ($200,000 for organizations).
    Further, false labeling of wildlife transported in interstate 
commerce is also criminalized, regardless of intent. If the products 
have a market value of less than $350, false labeling is a 1 year/
$100,000 misdemeanor, but if the value is greater than $350, the 
offender may be charged with another 5 year/$250,000 felony.
Federal Enforcement of the Lacey Act
    Federal enforcement of the Lacey Act is triggered in two 
situations. First, it is triggered when Federal law is violated, even 
if no interstate commerce takes place. For example, if an individual 
possesses a creature that is illegal to possess under Federal law, the 
Lacey Act may be enforced. Second, it is triggered when a state law 
regarding fish or wildlife is violated by a product that has been part 
of interstate commerce. Each state has its own protected, prohibited, 
restricted or approved exotic or game species lists, established by a 
state department of natural resources, fish and game, environmental 
protection or agriculture, and the creatures on the list can vary 
widely from one state to the next. For an example in this situation, 
consider Minnesota. In Minnesota it is illegal to transport 
``prohibited invasive species'' on a public road, and violation 
subjects the offender to a $250 civil penalty or a misdemeanor (up to 
90 days and/or $1,000). As a result, a company based in Minnesota who 
transports one of these species to another part of the state may be 
prosecuted under the state law. A company based in another state who 
transports one of these species on a Minnesota road may be prosecuted 
under the Lacey Act.
    How does this affect aquaculture? Imagine that a single fish (or 
even fish egg)--legal to possess in Wisconsin--is inadvertently loaded 
with a 2,000 lb. truckload of other fish that had been sold to an 
aquaculture producer in Minnesota. This single fish is on the Minnesota 
prohibited list. Once the truck crosses the state line, it is stopped 
by the Minnesota DNR, searched, and the prohibited fish is found. Both 
the Wisconsin seller and the Minnesota buyer may be prosecuted under 
the Lacey Act, and what would have been a maximum penalty of 90 days 
and/or $1,000 from the state of Minnesota has now turned into a 
potential year in Federal prison and up to a $100,000 fine. Moreover, 
the seller may also be charged with false labeling (for failing to 
include the prohibited fish in the list of the shipment's contents), 
adding up to another 5 years and/or $250,000 to the sentence.
Minimizing Risk
    The risks associated with the Lacey Act can, of course, be 
minimized by only shipping products in-state. However, this is not a 
reasonable or feasible option for many producers. For those producers 
involved in interstate shipment of aquacultural products, the only 
advice that may be helpful is to check, doublecheck and document every 
step taken to ensure that regulated species are not transported, 
because your freedom and livelihood might depend on convincing a judge 
or jury that you exercised due care in trying to prevent it. 
Aquaculturists can access the Injurious Species List, as authorized by 
the Lacey Act, by visiting http://www.fws.gov/fisheries/ans/
ANSInjurious.cfm. The National Agricultural Library is working on a 
nationwide compilation of information describing species that are 
regulated by the states, and it is located at http://
www.invasivespeciesinfo.gov/laws/statelaws.shtml. This compilation is 
still a work in progress, so aquacultural producers should still check 
with the Aquaculture Coordinator in the destination state or their 
state for regulated species information. Visit http://www.nasac.net/ 
for Coordinator contact information.
    For more information on the legal aspects involved in aquaculture 
operations, please visit the National Agricultural Law Center's 
``Aquaculture'' reading room, located at http://
www.nationalaglawcenter.org/readingrooms/aquaculture/.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Example 1
    Question: Producer A sells an unlabeled load of diploid black carp 
    to Producer B. Diploid black carp may be possessed in Arkansas. 
    However, it is on the Federal invasive species list, so it may not 
    be transported across state lines.
Charges
    Against A: Trafficking
    Against B: Trafficking
Example 2
    Question: Producer A sells a load of catfish to Producer B, but it 
    is labeled ``whitefish.''
Charges
    Against A: False Labeling
    Against B: None
Example 3
    Question: Producer A sells a load labeled ``catfish'' to Producer 
    B, and a black carp is included in the shipment.
Charges
    Against A: False Labeling & Trafficking
    Against B: Trafficking
Example 4
    Question: Producer A sells a load labeled ``catfish'' to Trucker in 
    AR. A black carp is included in the shipment. Trucker drives the 
    shipment to AL, and sells it to Producer B.
Charges
    Against A: False Labeling
    Against B: Trafficking
    Against Trucker: Trafficking
Example 5
    Question: Producer A sells a load labeled ``fishfish'' to Producer 
    C. Possession of ``fishfish'' is legal is AR and WI, but illegal in 
    IL, where Trucker is pulled over.

    Charges: No Lacey Act violation, as long as the load was correctly 
    labeled. Trafficking provisions do not apply to interstate shipment 
    if the shipment is en route to a state in which the fish or 
    wildlife or plant may be legally possessed.

    The Chairman. Thank you.
    Mr. Stewart, whenever you are ready.

 STATEMENT OF DAN STEWART, COW/CALF PRODUCER, MOUNTAIN VIEW, AR

    Mr. Stewart. I would like to thank the Committee for this 
opportunity to speak at the hearing today.
    My name is Dan Stewart. I have been a member of the 
Arkansas Cattlemen Association for over 20 years, and have 
served on their board. I am the current President of the Stone 
County Cattlemen and served in that office several times. I am 
a long time member of the Farm Bureau, and served on the Board 
of Directors of the Arkansas Limousin Organization. I live up 
in the hills of Stone County, Arkansas on a farm my family has 
worked and owned for over 100 years and there has always been 
cattle raised on that farm for as long as I can remember.
    One of my first memories is my grandpa sitting me up on the 
back of his big old Hereford bull. I tried that later as a 
teenager at a rodeo with a whole lot less success. I try my 
best to help my grandson to have the good memories of growing 
up on a farm and to know the responsibilities and work that 
comes with helping produce the food for our country and the 
world. I borrowed money and bought my first herd of cattle at 
the age of 16.
    Compared to many others our operation is small, but when I 
looked at the demographics I guess I am pretty much what you 
could call the average cattle producer. The average age of a 
farmer is 57 years old and the majority by far of the cattle 
producers have 100 or less head of cattle in their herd. I feel 
small farms and ranches are the heart and soul of our 
communities and have a far greater value to our country than 
just the quantity of animals that they produce.
    Most producers I know pretty much have a no-nonsense 
attitude when it comes to their cattle operations. If something 
works, they keep it. If it does not, they will try something 
else. If it ain't broke, don't fix it. So my suggestions to you 
are fairly simple.
    First of all, we need easy access to the programs that the 
government offers. It can be a real burden to drive long 
distances to apply for programs or to sign papers. The road 
systems in our part of the state are not always straight and 
smooth. It is more than just the distance as the crow flies. 
Not everyone has a computer or affordable access to the 
Internet.
    One of the programs that I take very personally is the 
disaster assistance programs. A little over 4 years ago, one of 
the longest track tornadoes on record started at Atkins, 
Arkansas and left a continuous path of destruction nearly to 
the Missouri state line, well over 100 miles long. The track of 
this tornado went from one end of my farm to the other, 
destroying all my fences, barns, and damaging and nearly 
destroying our home. The very next morning, the CED from our 
Farm Service Agency was out checking on the broken farms in his 
area. That is why we need local offices staffed with people 
that know the farmers and the land in their communities. The 
counties that were affected by this storm were declared a 
disaster area and we received financial assistance to reimburse 
us for some of our expenses in rebuilding. Without that help, I 
am not sure what we would have done.
    Another thing I feel is important to cattlemen is the 
conservation programs that help us preserve and protect our 
natural resources. This is even more important with the 
increasing concerns from the EPA and other environmental 
agencies.
    As a cattle producer and a user of feed, I am against any 
subsidies for ethanol. I think these subsidies have 
artificially raised corn prices to the point that it has really 
affected the livestock industry. Ethanol should stand on its 
own.
    I would like to see our marketing system kept as free as 
possible, but guard against anyone taking undue advantage of 
that system.
    To sum this all up, basically what I am saying is when we 
are affected by natural disasters and forces beyond our 
control, be there with the tools and the help we need to get 
back to the point that we can continue to be productive. Give 
us the guidance and assistance we need to protect our soil and 
water, the most valuable resources that we have. Keep rules and 
regulations to a minimum, but when there are mandates and rules 
that prevent the use of our land or the ability to produce an 
income from it, we should be properly compensated.
    Let us continue to do the job that we should be doing, and 
that is to produce the safest, most wholesome, and abundant 
food supply in the world.
    Thanks again for this opportunity.
    [The prepared statement of Mr. Stewart follows:]

Prepared Statement of Dan Stewart, Cow/Calf Producer, Mountain View, AR
    First of all I would like to thank the Committee for this 
opportunity to speak at this hearing today.
    My name is Dan Stewart and I've been a member of the Arkansas 
Cattlemen Association for over 20 years, and have served as a State 
Board Representative. I am the current President of the Stone County 
Cattlemen and served in that office several times, I'm a long time 
member of Farm Bureau, and served on the Board of Directors of the 
Arkansas Limousin Organization. I live up in the hills of Stone County 
Arkansas on a farm my family has worked and owned for over 100 years, 
and there has been cattle raised on this farm for as long as I can 
remember.
    One of my first memories is of my grandpa sitting me upon the back 
is his big old Hereford bull. (I tried that later as a teenager at a 
rodeo with a lot less success.) I try my best to help my grandson to 
have good memories of growing up on a farm and to know the 
responsibility, and work that comes with helping produce the food for 
our country and the world. I borrowed money and bought my first herd of 
cattle at the age of 16.
    Compared to many others our operation is small and I wondered why I 
was invited here to speak today, but when I looked at the demographics 
I guess I'm pretty much what you'd call the average cattle producer. 
The average age of a farmer is 57 years old and the majority by far of 
cattle producers have 100 or less head of cattle in their herd. I feel 
that small farms and ranches are the heart and soul of our communities 
and have a value to our country far greater than just the quantity of 
animals that they produce.
    Most producers I know pretty much have a no nonsense attitude when 
it comes to their cattle operation. If something works they keep it, 
and if it doesn't they try something else, if it ain't broke don't fix 
it, so my suggestions to you are fairly simple.
    First of all we need easy access to the programs that the 
government offers. It can be a real burden to drive long distances to 
apply for programs or sign papers. The road system in our part of the 
state is not always straight and smooth. It's more than just distance. 
Not everyone has a computer or affordable access to the Internet.
    One of the programs I take very personally is disaster assistance. 
A little over 4 years ago one of the longest track tornadoes on record, 
started at Atkins, Arkansas and left a continuous path of destruction 
nearly to the Missouri state line, well over 100 miles long. The track 
of this tornado went from one end of my farm to the other, destroying 
all my fences, barns, and damaging and nearly destroying our home. The 
very next morning the CED from our Farm Service Agency was out checking 
on the broken farms in his area. That's why we need local offices 
staffed with people that know the farmers and the land in their 
community. The counties that were affected by the storm were declared a 
disaster area and we received financial assistance to reimburse us for 
some of our expenses in rebuilding, without that help, I'm not sure 
what we would have done.
    Another thing I feel is important to cattlemen is the conservation 
programs that help us preserve and protect our natural resources. This 
is even more important with the increasing concerns from the EPA and 
other environmental agencies.
    As a cattle producer and a user of feed I am against any subsidies 
for ethanol. I think these subsidies have artificially raised corn 
prices to the point it has really affected the livestock industry. 
Ethanol should stand on its own.
    I would like to see our marketing system kept as free as possible, 
but guarded against anyone taking undo advantage of that system.
    To sum this all up basically what I'm saying is, when we are 
affected by natural disasters and forces beyond our control, be there 
with tools and the help we need to get back to the point we can 
continue to be productive. Give us the guidance and assistance we need 
to protect our soil and water, the most valuable resources we have. 
Keep rules and regulations to a minimum, but when there are mandates 
and rules that prevent the use of our land or the ability to produce an 
income from it we should be properly compensated.
    Let us continue to do the job we should be doing, that is to 
produce the safest, most wholesome, and abundant food supply in the 
world.
            Thank you again for this opportunity,

Dan Stewart.

    The Chairman. Thank you.
    Mr. Owen, again, when you are ready, sir.

  STATEMENT OF JOHN E. OWEN, RICE, SOYBEAN, CORN, AND COTTON 
       PRODUCER, JOHN AND ANNIE OWEN FARMS, RAYVILLE, LA

    Mr. Owen. Chairman Lucas, Members of the Committee, thank 
you for holding this hearing. I appreciate the opportunity to 
offer testimony on the 2012 Farm Bill. My name is John Owen and 
I raise rice, corn, soybeans, and cotton in northeast Louisiana 
where my wife Anne and I have been farming together for 30 
years. I also serve as President of the Louisiana Rice Growers 
Association and on several boards of the USA Rice Federation.
    America's farmers can be proud of what we do. We have 
helped carry our nation through not one, but two economic 
recessions in the past 12 years. We have reduced our country's 
trade deficit, we have ensured that Americans spend less of 
their disposable income on food than anyone else in the world. 
We contribute to national security by producing our own food 
and fiber here at home and by feeding and clothing much of the 
world. And I firmly believe that the U.S. farm policy that we 
will discuss here today, a policy that costs a fraction of one 
percent of the entire Federal budget, is essential to 
continuing our success.
    In short, U.S. agriculture is important to America and farm 
policy is important to U.S. agriculture.
    Mr. Chairman, I have to admit I do not have a great deal of 
confidence in Washington these days. But I must say that you 
and your Ranking Member, Mr. Peterson, and your counterparts in 
the Senate demonstrated last year that not everything in that 
town is broken.
    When my wife and I were talking about my testimony for this 
hearing and the kind of farm bill we would write this year 
under the kind of constraints that you were facing last year, 
we finally added it all up and concluded that it would look a 
whole lot like what you and Mr. Peterson developed last fall. 
All the key elements were there.
    You started off by acknowledging that what works for the 
farmers that you heard from last week in Illinois may not work 
for Anne and me in Louisiana. We have different crops, a 
different region and different risks. So importantly, you did 
not try to shove us all into some neat policy box that looks 
great in Washington, but falls apart on the farm. I really 
thank you for that.
    Another thing you did was to make sure that farmers were 
not sold a bill of goods. Out of all the options that a 
producer could choose from in the 2011 bill that you put 
together, there was protection built into each of them to make 
sure that if prices fell through the floor, there would not be 
a crisis in farm country because a producer was allowed to pick 
a false choice.
    I have seen a lot of revenue proposals out there, and 
nearly all of them do not have any price protection in them. If 
prices collapse, the revenue the producer is guaranteed 
collapses right along with it. I do not think all the producers 
realize this across the country. But I am relieved that you 
foresaw the problem and did something to prevent it.
    On top of these extremely important things, both producer 
choice and price protection, you also worked to improve crop 
insurance, including nudging the USDA along to quickly develop 
some risk management products that might hold out some hope for 
rice producers, who have not had great success with crop 
insurance in the past. And you also decided to let the ink dry 
on payment limits and AGI rules that were written just 2 years 
ago. Every one of these things is important to Anne and my 
farm.
    But I want to say one other thing. I know you took a lot of 
unfair flack for defending the rice provisions of the 2011 
bill. Your standing up for us does not go unnoticed in rice 
country. We greatly appreciate that you recognized that all we 
came to the table with was the direct payment, and that was 
going to be gone. So you worked with us to give us a decent 
alternative that we can still take to our banker and get a 
loan.
    In my 30 years in production agriculture, I have watched 
farm policy evolve through five farm bills. The best 
legislation built on previous farm policy and made adjustments 
that were improvements and updates, but not radical shifts in 
policy. I urge you to keep this in mind as you move forward 
drafting our next farm bill.
    The bottom line is, I believe--and maybe more importantly 
my banker believes--the 2011 package that you put together 
serves as an excellent framework for you to develop the 2012 
Farm Bill.
    Thank you for allowing me this time to testify.
    [The prepared statement of Mr. Owen follows:]

  Prepared Statement of John E. Owen, Rice, Soybean, Corn, and Cotton 
           Producer, John and Annie Owen Farms, Rayville, LA
Introduction
    Chairman Lucas, Ranking Member Peterson, and Members of the 
Committee, thank you for holding this hearing concerning farm policy 
and the 2012 Farm Bill. I appreciate the opportunity to offer testimony 
on farm policy from the perspective of a diversified producer.
    My name is John Owen. I raise rice, soybeans, corn, and cotton in 
Richland Parish in northeastern Louisiana and I have been farming in 
partnership with my wife Anne for thirty years. In addition, I serve as 
President of the Louisiana Rice Growers Association and on several 
boards and committees of the USA Rice Federation, including the USA 
Rice Producers' Group.
Importance of Agriculture and Cost-Effective Farm Policy
    The U.S. agriculture sector should be proud of our contributions to 
the U.S. economy. In a time of economic downturn, agriculture producers 
have managed to remain profitable, create new jobs, and provide 
consumers in the U.S. and all over the world with a safe and abundant 
supply of food and fiber.
    While U.S. agriculture is critically important to America, farm 
policy is also critically important to U.S. agriculture.
    I would urge lawmakers to reject cuts to U.S. farm policy that 
would exceed the level specified in the letter by the House and Senate 
Agriculture Committee Chairs and Ranking Members to the Joint Committee 
on Deficit Reduction last fall. I am concerned that an attempt to write 
a farm bill with budget reductions greater than the $23 billion 
proposed last year will result in farm policy that is inadequate to 
meet the risk management needs of producers.
2008 Farm Bill Review
    The 2008 Farm Bill continued the traditional mix of policies 
consisting of the non-recourse marketing loan, loan deficiency 
payments, and the direct and counter cyclical payments. This past farm 
bill made substantial changes to the payment eligibility provisions, 
establishing an aggressive adjusted gross income (AGI) means test and 
significant tightening of ``actively engaged'' requirements for 
eligibility. The 2008 Farm Bill also included the addition of Average 
Crop Revenue Election (ACRE) as an alternative to counter cyclical 
payments for producers who agree to a reduction in direct payments and 
marketing loan benefits. The bill also added Supplemental Revenue 
Assurance (SURE) as a standing disaster assistance supplement to 
Federal crop insurance.
    To be honest, neither ACRE or SURE has proved much value for the 
crops I grow on my farm. With some changes, a revenue-based policy may 
be workable for some crops in some growing regions. But for crops that 
I produce, I haven't seen a revenue-based proposal yet that would be 
effective in the Mid-South. And particularly as it relates to rice 
production in my part of the country, forcing me to depend on a revenue 
policy for risk management will leave me with little to no price 
protection, which is the main risk I face in rice. SURE has provided 
little, if any, assistance to producers in the Mid-South who suffered 
significant monetary losses in 2009 due to heavy rains and flooding 
occurring prior to and during harvest, or the significant losses last 
year as a result of spring flooding in the Mid-South. SURE's inability 
to provide disaster assistance for such catastrophic events further 
highlights the continuing gap in available policies designed to help 
producers manage or alleviate their risk.
    Whatever its imperfections, the Direct Payment alone has assisted 
producers in meeting the ongoing and serious price and production 
perils of farming today. Direct payments have provided critically 
important capital to farmers that they could tailor to their unique 
needs. This capital was used to help finance production costs, cover 
shallow losses, and purchase crop insurance or to make capital 
improvements to farming operations. While other options to direct 
payments are being considered, we believe it will be very difficult to 
improve upon their effectiveness.
    I believe we must focus on strengthening farm policies in the 2012 
Farm Bill to help ensure that all producers have the ability to 
adequately manage their risks and access needed credit.
Crop Insurance
    Crops grown in the Mid-South have traditionally been under-served 
by crop insurance. As a result, we have on average lower coverage 
levels and higher premium costs for most of our crops. This situation 
has been improving in recent years, but we are still far from the day 
when I as a Mid-South producer can say that crop insurance is the most 
important part of farm policy for me. In fact, I think it is 
inappropriate to believe that crop insurance can ever be the sole 
policy producers rely on for risk management. Crop insurance is 
designed to cover production shortfalls or price declines in a single 
year. It is not designed to protect against price declines over 
multiple years. And I find myself asking the question, and let me be 
clear I hope we don't see this happen, but if crop prices decline again 
in a scenario like we saw in the late 1990's how effective is crop 
insurance going to be then? If corn prices are $2.50/bushel and soybean 
prices are $5.00/bushel it is clear that a crop insurance revenue 
policy is not going to be of much help to me as a producer with prices 
at these levels.
    From a rice grower's perspective I have additional concerns about 
crop insurance. The risk management products offered under Federal Crop 
Insurance have been of very limited value due to a number of factors, 
including artificially depressed actual production history (APH) 
guarantees, which I understand is also a problem for many other 
producers; high premium costs for a relatively small insurance 
guarantee; a lack of convergence between the cash and futures prices 
for rice; and the fact that the risks associated with rice production 
are unique from the risks of producing many other major crops.
    What rice farmers like I need from Federal crop insurance are 
products that will help protect against increased production and input 
costs, particularly for energy and energy-related inputs. For example, 
fuel, fertilizer, and other energy related inputs represent about 70 
percent of total variable costs.
    As such, rice producers enter the 2012 Farm Bill debate at a very 
serious disadvantage, having only a single farm policy that effectively 
works and that farm policy being singled out for elimination.
Commodity Futures Market
    Another risk management tool that is becoming more important for me 
as a producer is the use of the commodity futures market to hedge my 
price risks for the crops I produce. As we see the coming changes in 
the farm bill, I think the ability to effectively use the futures 
market to price and market our crops will become imperative. Today I 
have the ability to hedge the corn and soybeans I produce, but with 
rice I am limited in the opportunity to hedge the crop due to issues 
with the rice futures contract. The contract has suffered from a lack 
of convergence between cash prices and the futures prices, and in some 
cases there has been a negative basis as wide as $4/cwt. For the other 
crops I produce, I am able to hedge my prices successfully, but for the 
rice we grow, I am unable to do so.
2012 Farm Bill
    First and foremost, I believe that the 2012 Farm Bill should be 
reauthorized this year.
    I know that due to budget restrictions, it will be necessary to 
write the upcoming farm bill with fewer resources than have been 
available in the past. Furthermore, some farm policies must be modified 
to satisfy specific trade objectives as a result of the U.S.-Brazil WTO 
case. The continuation of a multi-legged stool that includes the 
marketing loan, countercyclical payments and the best mix of risk 
management tools for producers.
    I believe that the planting flexibility provided under the 1996 
Farm Bill and the countercyclical policies that have been in place for 
more than a decade now have served this nation and its farmers well. In 
addition, the non-recourse marketing loan still serves an important 
function by allowing producers the ability to utilize the loan for the 
marketing of their crops. This is particularly important in both the 
rice and cotton industries.
    Given the aforementioned budget pressures and other considerations 
facing Congress, I believe that the following priorities represent the 
needs of producers in crops here in the Mid-South:

  <bullet> First, the triggering mechanism for assistance should be 
        updated to provide tailored and reliable help should commodity 
        prices decline below today's production costs, and should 
        include a floor or reference price to protect in multi-year low 
        price scenarios.

  <bullet> Second, as payments would only be made in loss situations, 
        payment limits and means tests for producers should be 
        eliminated, or at a minimum not tightened any further.

  <bullet> Third, Federal crop insurance should be improved to provide 
        more effective risk management for all crops in all production 
        regions, beginning with the policy development process.
Price Protection is Key
    I believe the main purpose of farm policy is to provide protection 
in the event of price declines, which are beyond the control of 
producers. As noted earlier crop insurance can't provide this 
protection across multiple years, and only protects against price 
declines within a growing season. My understanding of the farm bill 
package developed last fall by this Committee and your counterparts in 
the Senate is that it included reference prices at levels more relevant 
to today's cost of production and this reference price would provide a 
floor for both a price-based option and a revenue-based option. I think 
this is the most critical component of the next farm bill and must be 
included in any policy option.
    To use rice for an example, price volatility is the primary risk 
producers face that they do not have other good means of protecting 
against, with price fluctuations largely driven by global supply and 
demand. Rice is one of the most protected and sensitive global 
commodities in trade negotiations, thus limiting access to a number of 
key markets. Costs of production have risen to a point where the 
current $6.50 (loan rate)/$10.50 (target price) assistance triggers are 
largely irrelevant. So I believe the first priority should be to 
concentrate on increasing the prices or revenue levels at which farm 
policy would trigger so that it is actually meaningful to producers, 
and would reliably trigger should prices decline sharply.
    The reference price for rice should be increased to $13.98/cwt 
($6.30/bu). This level would more closely reflect the significant 
increases in production costs for rice on our farm. And this reference 
price should be a component of both the price-loss policy and the 
revenue-loss policy to ensure downside price protection.
Options for Different Production Regions
    Another important concept that I believe should be reflected in the 
next farm bill is producer choices or options. It is easy to see that 
not only are there significant differences in the policy needs of 
various crops, but there are different risk management needs for the 
same crop in different growing regions.
    Whether it is the rice or corn on my farm in northeast Louisiana, I 
have a different view of what policy will work best on my farm relative 
to corn in Iowa or rice in California. Again, using rice as an example, 
here in the Mid-South and the Gulf Coast production regions, a price-
based policy is viewed as being most effective in meeting our risk 
management needs. Specifically, this policy should include a price 
protection level that is more relevant to current cost of production; 
paid on planted acres or percentage of planted acres; paid on more 
current yields; and take into account the lack of effective crop 
insurance policies for commodities like rice.
    However, my friends producing rice in California have analyzed the 
potential for a revenue-based policy that could work better in their 
area to provide effective risk management. Efforts to analyze 
modifications which will increase the effectiveness of revenue plan 
continue. Since rice yields are highly correlated between the farm, 
county, crop reporting district, and state levels, a revenue plan 
should be administered for rice at either the county or crop reporting 
district level to reflect this situation rather than lowering guarantee 
levels to use farm level yields. By setting loss triggers that reflect 
local marketing conditions, delivering support sooner, and 
strengthening revenue guarantees that account for higher production 
costs as well as the absence of effective crop insurance, California 
rice producers are hopeful that an effective revenue option can be 
developed.
    Different perils confront producers of different crops. Producers 
need a choice, just as producers were also allowed choices in the 2008 
Farm Bill. A necessary part of providing a real choice is to ensure 
that each option, revenue-based or priced-based, provides effective 
protection in the event of price declines, particularly in multiyear 
low price scenarios.
Tailored and Defendable Policy
    I believe it makes sense to provide assistance when factors beyond 
our control create losses. Generally more tailored farm policies are 
more defendable. For this reason, I like the thought of updating bases 
and yields or applying farm policies to planted acres/current 
production and their triggering based on prices or revenue, depending 
on the option a producer chooses.
Planting Flexibility
    Direct payments are excellent in this regard. SURE or similar whole 
farm aggregations tend to discourage diversification, which could be a 
problem for farms in my area and across the Mid-South where we tend to 
have very diversified farms. Whatever is done should accommodate 
history and economics and allow for proportional reductions to the 
baseline among commodities. Some commodities are currently more reliant 
on countercyclical farm policies (ACRE/CCP) while others are receiving 
only Direct Payments in the baseline. Generally, the least disruptive 
and fairest way to achieve savings across commodities would be to apply 
a percentage reduction to each commodity baseline and restructure any 
new policy within the reduced baseline amounts.
    I know there have been concerns raised about higher reference 
prices distorting planting decisions and resulting in significant 
acreage shifts including for rice. I have not seen analysis that shows 
significant acreage shifts resulting from the reference price levels 
included in the 2011 Farm Bill package. In fact, for rice specifically, 
a reference price of $13.98/cwt that is paid on historic CCP payment 
yields and on 85% of planted acres results in a reference price level 
well below my average cost of production, so I find it hard to imagine 
why someone would plant simply due to this policy given these levels.
Crop Insurance Should Be Maintained and Improved
    Although crop insurance does not currently work as well for rice as 
it does for other crops, the third priority would be to improve 
availability and effectiveness of crop insurance for rice as an 
available option. I would also support improvement to the product 
development processes (we have struggled with two 508(h) submissions 
for over 4 years and are still not completed with the process), and to 
the APH system such that any farmer's insurable yield (pre-deductible) 
would be reflective of what that farmer actually expects to produce. In 
no case should the crop insurance tools, which are purchased by the 
producer, be encumbered with environmental/conservation regulation or 
other conditions that fall outside the scope of insurance.
2011 Budget Control Act Efforts
    Although the details of the 2011 Farm Bill package that was 
prepared by the House and Senate Agriculture Committees in response to 
the Budget Control Act were not disclosed, based on discussions and 
reports I believe that package at least represents a good framework on 
which to build the 2012 Farm Bill. The 2011 package included a choice 
of risk management tools that producers can tailor to the risks on 
their own farms, providing under each of those options more meaningful 
price protection that is actually relevant to today's production costs 
and prices. It also included provisions to improve crop insurance and 
expedite product development for under-served crops such as rice.
    I would note that the effective support for rice producers under 
the price-based option was set well below cost of production and that 
late changes to the revenue-based option minimized its potential as an 
effective risk management tool for any rice producers, and that pay 
limits and AGI rules would still serve as an arbitrary constraint upon 
U.S. competitiveness globally. Still, even with these areas for 
improvement, I want to express my appreciation to the Members and staff 
that put enormous time and effort into what I believe represents a good 
blue print for ongoing farm bill deliberations.
    Thank you for this opportunity to offer my testimony today and I 
will be pleased to respond to any questions.

    The Chairman. Thank you, Mr. Owen.
    Mr. Corcoran, whenever you are ready.

      STATEMENT OF WALTER L. CORCORAN, Jr., COTTON, CORN,
          PEANUT, SOYBEAN, GRAIN SORGHUM, AND COW/CALF
                     PRODUCER, EUFAULA, AL

    Mr. Corcoran. I would like to thank Chairman Lucas and the 
Members of the Committee for the opportunity to provide my 
views on U.S. farm policy. I would also like to express my 
gratitude to Congressman Rick Crawford for hosting this very 
important hearing.
    My name is Walt Corcoran from Eufaula, Alabama. Along with 
my brother, nephew and our wives, we operate a diversified 
family farming operation in both Georgia and Alabama. Our 
principal crops include cotton, corn, peanuts, soybeans, and 
grain sorghum. We also manage a 500 head cow/calf operation. 
The majority of my crop production is dryland with about \1/3\ 
irrigated using surface water.
    A sound and stable farm policy is critically important to 
the economic viability of U.S. agriculture. I fully support the 
Committee's commitment to conclude a farm bill in 2012. It is 
critically important to provide certainty to those of us 
involved in production agriculture since we make long-term 
investment decisions based in part on Federal farm policy.
    The 2008 Farm Bill has worked very well for my operation. 
The combination of marketing loan, direct payment, and 
countercyclical payments have provided a good safety net. I 
appreciate the budget pressure facing this Committee and all of 
Congress. Those pressures will lead to reduced funding for the 
next farm bill and I want to stress that agriculture is willing 
to contribute an equitable share to deficit reduction. But I 
encourage this Committee to fight efforts to impose a 
disproportionate burden on farm programs.
    In addition to budget pressures, the cotton industry faces 
a unique challenge in resolving the longstanding dispute with 
Brazil. Because of these challenges, the National Cotton 
Council has proposed an innovative revenue-based crop insurance 
program known as STAX. This product replaces the direct and 
countercyclical payments for cotton; thus, directly addressing 
one of the programs found to be at fault in the WTO dispute. In 
the opinion of the U.S. cotton industry, this structure will 
best utilize reduced budget resources, respond to public 
criticism by directing benefits directly to growers, and builds 
on the existing crop insurance programs.
    The findings of the WTO case also require that changes be 
made in the marketing loan for upland cotton as part of the 
development of the 2012 Farm Bill. I also encourage this 
Committee to follow the industry's recommendation to introduce 
a formula for determining the marketing loan level. That 
formula will allow the marketing loan to adjust lower in times 
of lower prices. The loan rate for a crop will be determined in 
the fall prior to planting the crop and will have a range from 
52 to 47.
    The House and Senate Agriculture Committees' proposal to 
the Joint Budget Committee recognized the fact that because of 
the diversity of crop needs, a one-size-fits-all approach is 
not practical. I encourage your Committee to continue this 
approach in your deliberations and tailor the various programs 
to fit the needs and constraints of the individual commodities.
    Farmers understand that agriculture is an extremely risky 
endeavor, but we also understand that effective risk management 
is the key to long-term viability.
    Like the vast majority of farming operations across the 
Cotton Belt, crop insurance and risk management tools are 
critically important to my economic livelihood. Given the 
diversity of weather and production practices, the menu of 
insurance choices should be diverse and customizable, thus 
allowing for maximum participation and the most effective 
coverage. I have crop insurance on most of my crops. Last year, 
because of the severe drought, it provided a measure of risk 
protection that was critical to my farming operation. I 
strongly urge that crop insurance not be weakened during this 
farm bill.
    In 2008, the introduction of enterprise unit pricing gave 
us one more option for insuring against risks that are beyond 
our control. I encourage the continuation of this option.
    Mr. Chairman, thank you for the opportunity to make these 
brief comments.
    [The prepared statement of Mr. Corcoran follows:]

 Prepared Statement of Walter L. Corcoran, Jr., Cotton, Corn, Peanut, 
       Soybean, Grain Sorghum, and Cow/Calf Producer, Eufaula, AL
    Good morning. I would like to thank Chairman Lucas, Ranking Member 
Peterson, and Members of the Committee for the opportunity to provide 
my views on U.S. farm policy. I would also like to express my gratitude 
to Congressman Rick Crawford for hosting this very important hearing. 
My name is Walt Corcoran, Jr. from Eufaula, Alabama. I along with my 
brother, nephew and our wives, operate a diversified family farm 
operation in both Georgia and Alabama. Our principal row crops include 
cotton, corn, peanuts, soybeans and grain sorghum. We also manage a 500 
head cow/calf herd. The majority of my crop production is dryland with 
about \1/3\ of my acreage using surface water irrigation.
    A sound and stable farm policy is critically important to the 
economic viability of U.S. agriculture--I appreciate the dedication and 
diligent work of this Committee during last fall's attempt at a joint 
deficit reduction package. While that effort did not advance a farm 
bill conclusion I fully support the Committee's commitment to conclude 
a farm bill in 2012. It is critically important to provide certainty to 
those of us involved in production agriculture since we make long-term 
investment decisions based on Federal farm policy.
    The 2008 Farm Bill has worked very well for my operation. The 
combination of the marketing loan, Direct Payments and Counter-cyclical 
Payments has provided a good safety net, and in recent years, has 
required minimal Federal spending. I appreciate the budget pressures 
facing this Committee and all of Congress. Those pressures will lead to 
reduced funding for the next farm bill. I want to stress that 
agriculture is willing to contribute an equitable share to deficit 
reduction, but I encourage this Committee to fight efforts to impose a 
disproportionate burden on farm programs. We support your Committee's 
recommendation of $23 billion in budget savings as an equitable 
contribution to deficit reduction.
    In addition to budget pressures, this Committee is well aware that 
the cotton industry faces the unique challenge of resolving the long-
standing trade dispute with Brazil. Because of these challenges, the 
National Cotton Council has proposed an innovative revenue-based crop 
insurance program known as STAX. This product replaces the direct and 
countercyclical payments for cotton, thus directly addressing one of 
the programs found to be at fault in the WTO dispute. In the opinion of 
the U.S. cotton industry, this structure will best utilize reduced 
budget resources, respond to public criticism by directing benefits to 
growers who suffer losses resulting from factors beyond their control, 
and build on the existing crop insurance program, thus ensuring no 
duplication of coverage and allowing for program simplification.
    The findings in the WTO case also require that changes be made to 
the marketing loan for upland cotton as part of the development of the 
2012 Farm Bill. I also encourage this Committee to follow the 
industry's recommendation to introduce a formula for determining the 
marketing loan level. That formula will allow the marketing loan to 
adjust lower in times of low prices. The loan rate for a crop will be 
determined in the fall prior to planting the crop and be set equal to 
the average of the AWP for the two most recently completed marketing 
years provided the 2 year moving average falls within a set maximum of 
$0.52 and a minimum level of $0.47.
    Other existing features of the upland cotton marketing loan should 
be retained in the next farm bill. These include an effective 
determination of the Adjusted World Price for purposes of loan 
redemption in times of low prices. as well as the provision of storage 
credits should the loan redemption price fall below the loan rate.
    The House and Senate Agriculture Committee proposal to the Joint 
Budget Committee recognized the fact that because of the diversity of 
crop needs, a one-size-fits-all approach is not practical. I encourage 
your Committee to continue this approach in your deliberations and 
tailor the various programs to fit the needs and constraints of the 
individual commodities.
    Farmers understand that agriculture is an extremely risky endeavor, 
but they also understand that effective risk management is the key to 
long-term viability. While the goal of farm programs is not to 
completely remove the risk associated with farming, farm programs 
should strive to provide opportunities for effective risk management.
    Like the vast majority of farming operations across the Cotton 
Belt, crop insurance and risk management tools are critically important 
to my economic livelihood. Given the diversity of weather and 
production practices, the menu of insurance choices should be diverse 
and customizable, thus allowing for maximum participation and the most 
effective coverage. I have crop insurance coverage on most of my crops. 
Last year, because of the severe drought conditions, it provided a 
measure of risk protection that was critical to the economic viability 
of my farming operation.
    I strongly urge that crop insurance not be weakened during this 
farm bill. In today's environment of volatile prices and high input 
costs, effective risk management has never been more important.
    In 2008, the introduction of enterprise unit pricing gave producers 
one more option for insuring against those risks that are beyond their 
control. I encourage the continuation of that option in the 2012 Farm 
Bill.
    Mr. Chairman, my brief comments do not provide an exhaustive look 
at the many important programs included in the current farm 
legislation. That said, there are a couple or others I would point out. 
Assistance for our U.S. textile mills was introduced in the 2008 Farm 
Bill, and I encourage that program to be continued in the next farm 
law. In recent years, conservation programs have become increasingly 
important and I hope those programs will remain useful options. Thank 
you for the opportunity to offer these, and I look forward to the 
opportunity to answer questions at the appropriate time.

    The Chairman. Thank you, sir. And I now recognize myself 
for 5 minutes.
    Mr. Owen, in your written statement you said, ``It is 
inappropriate to believe that crop insurance can ever be the 
sole policy producers rely upon for risk management.'' Sole 
policy. Expand just--and you did a good job in your testimony. 
Expand just a little bit more on that if you would for the 
record.
    Mr. Owen. Well, the main problem with using crop insurance 
as the sole basis risk management is that crop insurance cannot 
protect you against a multi-year low price scenario such as we 
experienced in the late 1990s. The indemnities for crop 
insurance or the triggers are set in the winter and they are 
generally based off Chicago Board of Trade futures, and when 
those prices are low, then you have a product that provides no 
protection from the beginning. So without an underlying 
reference price, either countercyclical or through a revenue 
assurance policy offered through the government that is 
economically viable, then crop insurance is not a long-term 
safety net for agriculture in the Mid-South, or as far as I can 
see, anywhere in the country.
    The Chairman. Very insightful plan, sir.
    Mr. Stewart, you mentioned the importance of disaster 
programs. So as a fellow cattleman, I ask this question and if 
you do not mind me asking, have you participated in any of the 
livestock disaster programs offered under the 2008 Farm Bill--
the Livestock Forage Program or the Livestock Indemnity 
Program?
    Mr. Stewart. What I have participated in is the NAP, the 
non-insured disaster program. The LA--there are a lot of 
letters and acronyms and it is almost like learning a new 
language.
    The Chairman. Yes.
    Mr. Stewart. But we did not qualify. It is pretty hard to 
qualify in that Livestock Forage Program, so we did not. But I 
have received payments from the NAP Program, which is the non-
insured. And as far as the Livestock Indemnity Program, I do 
keep records of losses in case I would qualify, but so far I 
have personally been lucky enough that I have not had to use 
the LIP program.
    The Chairman. One other question, Mr. Stewart. You 
mentioned ethanol just a moment ago. From your perspective as a 
cattleman, some would argue, with 45, maybe 50 percent of the 
corn crop on average in the last couple of years going through 
the ethanol cookers, that it has no real effect on the supply 
of corn or the availability of feed. What do you think of that 
comment that some people make.
    Mr. Stewart. Well, that seems to be hard to believe. I do 
not think the corn crop as a whole has gone up that much. 
First, they were talking about the distiller's grain, but it 
seems like that has not--we have not been able to utilize that 
as a feed source like we were once led to believe.
    The Chairman. On the previous panel, my colleague from 
Arkansas noted about the Conservation Reserve Program and we 
are seeing in some of the re-enrollments the acres come down, 
which of course, CRP is a voluntary conservation program and I 
am a great believer in voluntary conservation programs, by the 
way, for the record. But as those CRP acres come down, that 
seems to imply that producers are assessing grain prices and 
determining we have to have more production. My cattlemen, pork 
producers, poultry people, and turkey people at home tell me in 
a pretty straight-forward way that the feed supplies have been 
really tight the last 2 years. Do you see that when you buy 
your 20 percent pellets?
    Mr. Stewart. Yes, I do, sir.
    The Chairman. So we have to have more grain. You would 
agree with that statement.
    Mr. Stewart. Yes, in order to keep the price where we can 
afford it. You know, if you have the money, you can buy it, but 
it makes it tough. And I know right now, cattle prices are 
good, but as we all know, they do not last.
    The Chairman. Exactly. Exactly. Looks like my time is about 
to expire.
    I now turn to the gentleman from Texas for 5 minutes, Mr. 
Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Hundley, you mentioned that you were opposed to means 
testing. A lot of folks are opposed to large farming operations 
getting farm payments. I think in your testimony, you said it 
would be detrimental to the family farms in Arkansas. Do you 
want to elaborate on that?
    Mr. Hundley. Yes. I think as you see from the previous 
panel and this panel, the one thing that lenders and people 
that extend credit like right now is the guarantee that a 
deficiency payment provides. Not so much the deficiency 
payment, but the guarantee. And I think means testing in itself 
is almost a failed attempt to regulate a failed policy. You 
know, the safety net that we need needs to be a safety net that 
is available to every farm on every acre on every crop, 
regardless of their size or their business structure. And I 
think from that standpoint is what I referred to as means 
testing would be detrimental to Arkansas farmers if it was just 
you draw a line in the sand and say okay, you get it, you do 
not.
    Mr. Neugebauer. Mr. Owen, you mentioned that reform to crop 
insurance you thought would be an integral part of the next 
farm bill. One of the things that we are going to have to do is 
make choices because in this budget environment we feel like we 
are going to be obviously dealing with a smaller amount of 
funds to put together a good comprehensive farm policy in the 
future.
    Of the current policy that we have; in other words, talking 
about looking at the baskets we have now, in your operation, 
what do you think is the most important farm program that 
exists today that we should work really hard to preserve. If 
you had to pick one. And I know that is difficult and I am not 
saying we are going to have to do that, but I am just trying--
we are going to have to prioritize this and we are trying to 
get your thoughts.
    Mr. Owen. It is not as difficult as you would imagine. For 
my operation, countercyclical program is by far the most 
important and the most defendable to the city people. Having a 
meaningful reference price that we can take to a bank to get 
financed, having a loan program that we can use to aid our 
marketing is the most important. We need price protection and 
we need yield protection. Price protection has to come from the 
countercyclical type program. Yield protection should come from 
insurance. And the most important factor by far though to my 
operation is a countercyclical program with a reference price 
that is meaningful.
    Mr. Neugebauer. You know, one of the things that we have 
seen is the countercyclical payments have actually performed 
extremely well over the last few years, and that is the way the 
program was designed, was when the price was low obviously you 
had that safety net. But in many commodities, for the last few 
years obviously, countercyclical payments have not come into 
play. So that is a program--unfortunately that is one of the 
programs that we have had trouble with the WTO. So obviously 
that is something we will have to address.
    Mr. Stewart, in this environment where we have just come 
out of in Texas some pretty severe droughts and some other 
parts of the country, what are some of the biggest challenges 
for the cow/calf producer today?
    Mr. Stewart. Well, like you say, regardless of whether you 
attribute it to global warming or weather cycles or what, but 
it seems like we are in a system of extremes. In our area, we 
can have floods, massive floods all spring. Summer gets here 
and we do not get another drop until next winter. And that 
seems to be one of the biggest challenges as far as our forage 
production.
    Other issues--like most farmers and ranchers, we like to 
look ahead and plan for the worst. And there are environmental 
issues that possibly will be out there. Some of them, like the 
dust issue, they say that was just a myth, but it concerns a 
lot of farmers. And I would like to see some assurance that 
stuff like that will not affect us in the future.
    Mr. Neugebauer. I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    The chair now recognizes the gentleman from Arkansas, Mr. 
Crawford, for 5 minutes.
    Mr. Crawford. Real quick, we were talking with Mr. Stewart. 
I want to talk about something that has been brought to my 
attention by a number of folks. The testimony you gave 
regarding your experience as a child and just kind of 
describing the family dynamic on your farm.
    The Department of Labor issued a proposed regulation in 
regards to children working on farms, and to my knowledge, no 
ag group obviously supported that initial proposal. But since 
the backlash, the Department has said they will repropose the 
regulation involving the parental exemption section only. Have 
you read anything about that? And what would be the impact on a 
family farm like yours if they were to tell you that you could 
not allow your children to participate in production 
agriculture?
    Mr. Stewart. Well, I personally think it would be 
devastating to the family farm, because at an early age, my 
thought is you need to instill a love for farming. Farming in 
our area especially is more than just an economic thing. It is 
a way of life and something that you have to really want to do 
because at times it is tough. And if you do not love what you 
do, you are not going to stay in it. And if you instill that in 
your children and grandchildren at an early age, we can 
continue to have our family farms.
    Mr. Crawford. Excellent, thank you.
    Mr. Freeze, the Arkansas fish growing industry has been in 
decline for the past few decades. Can you talk about some of 
the factors that have contributed to that decline? And in 
crafting the next farm bill, what would the suggestions be to 
address those issues?
    Mr. Freeze. Well, of course, the rising input cost, your 
increase in feed and increase in energy costs, et cetera. They 
affect the aquaculture industry or fish farms just like they do 
other farmers. But probably this unlevel playing field that was 
referred to with the seafood inspection is one of the big 
issues. I think this Committee tried to correct that in the 
2008 Farm Bill, but it has been almost 4 years now and still 
the inspection of catfish coming into the United States has not 
been transferred from FDA to FSIS. FSIS started inspections and 
we are wondering how much longer this is going to take.
    So other than that, some of the regulatory issues that I 
talked about. I mean, I know all farmers feel as if they are 
over-regulated but I think if you will add it up, for a fish 
farmer, we are regulated by something like 30 to 40 different 
state and Federal agencies. And it is just a real problem.
    Mr. Crawford. Thank you.
    In the time I have left, Mr. Hundley, many of the Members 
of this Committee see farmers as the best stewards of the land 
and I think certainly those Members that are present would 
agree with that. But the EPA seems to think differently about 
that. Congress has given producers the tools through cost-share 
programs and voluntary incentive-based programs to improve 
water, soil and air quality. Can you talk about the importance 
of conservation programs in dealing with potential regulations 
that we may be seeing with respect to EPA?
    Mr. Hundley. I need to think about how to say this. When 
you mention EPA, one of the problems, you say that there are 
programs to help us mitigate some of those regulations. What I 
see right now, it seems that we have an agency that is out 
there making rules and trying to enforce rules that have 
sidestepped even the Committee or even Congress sometimes. It 
seems like, for instance, the fuel containment deal. I mean 
just all of a sudden, here it comes. I don't want to look a 
gift horse in the mouth on some of these programs that we have 
to help offset these, but you know, we feel that the EPA is 
over-reaching sometimes and we feel like you all should have 
some input before it ever comes to us as an implementation of a 
law.
    Mr. Crawford. Okay. A little time left.
    Mr. Corcoran, you want to comment on that with respect to 
EPA on your farm?
    Mr. Corcoran. Just as he was saying, they over-reach. I 
think they are implementing or putting rules on us before we 
know what is going on. As far as point source pollution in our 
state. We had a big problem with trying to regulate--I think it 
is everywhere--the waters under the Clean Water Act, trying to 
regulate the nozzle as a point-source source of pollution. They 
are far over-reaching regulations and we need to rein them in 
somehow.
    Mr. Crawford. Mr. Owen, final thought.
    Mr. Owen. Well, first of all, I would say that farmers are 
the original active environmentalists, instead of being 
environmental activists. And EPA does need to be reined in. We 
are excellent stewards of the land and I would put our record 
up against any country as far as the way we take care of our 
land, the way our pesticides are regulated, the way we use our 
pesticides. We have a fabulous track record and we do not need 
further regulation.
    Mr. Crawford. Thank you. I yield back, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    The chair now recognizes the gentleman from Indiana, Mr. 
Stutzman, to conclude the questions for this panel. You are 
recognized for 5 minutes, sir.
    Mr. Stutzman. Thank you, Mr. Chairman.
    As we all know, there is plenty of volatility in 
agriculture. As we see yesterday corn prices were down, today 
corn and soybean prices are up 30 cents and 50 cents, just due 
to crop reports. You know, we see a lot of volatility. Many 
folks out East do not understand those challenges. We are 
always trying to play--we have to play two sides of the game. 
You have input costs and then you have your commodity prices 
that affect us.
    I appreciate Congressman Crawford so much. Being a corn and 
soybean farmer from northern Indiana, rice is really a new crop 
to me. I do not understand the complexities that you all face. 
And one of the comments that Mr. Owen, you had in your 
testimony, I would like to direct this question to Mr. Owen and 
Mr. Corcoran. In your testimony, Mr. Owen, you cite ``What rice 
farmers like I need from Federal crop insurance are products 
that would help protect against increased production and input 
costs, particularly for energy and energy-related inputs. For 
example, field fertilizer and other energy-related inputs 
represent about 70 percent of total variable costs.''
    I know for myself as a corn and soybean farmer, I have 
about the exact same situation for us. It is volatility in the 
input side. Can you give me an idea--we are seeing a lot of 
volatility in the corn and soybean markets. What are you seeing 
on the rice side? I just have not followed those prices. What 
is different about rice from corn and soybeans?
    Mr. Owen. Well, first of all, rice has been working 
towards, for the last 4 years with RMA trying to develop a 
policy that would provide us with rising input protections in 
fuel and fertilizer primarily. And the main thing that is 
different about rice is the cost of running irrigation pumps. 
When we have a drought scenario--and you have a 100 horsepower 
motor on average in the Mid-South, 100 horsepower motor turning 
24 hours a day trying to keep water on 100 acres of rice. Well, 
most rice farmers are farming 750 to 1,500 acres of rice in 
their rotational mix. That is a significant consumption of 
diesel. And also when we have fertilizer price spikes such as 
in 2008, it just runs your production cost through the roof. So 
we are working with RMA to try to develop a product for rice, 
which may very well work for corn and soybeans after it is 
developed and up, but this is a pilot program that we are 
trying to get through and developed. But I would say the amount 
of diesel and electricity required to run irrigation systems in 
drought periods is our main cost of running up our fuel.
    Mr. Stutzman. And Mr. Corcoran, if you could talk a little 
bit about the price of rice and how that market works.
    Mr. Corcoran. I am not a producer of rice.
    Mr. Stutzman. Oh, I am sorry, you are cotton. I am sorry 
about that.
    Mr. Owen and Mr. Hundley, if you could maybe comment on 
that.
    Mr. Hundley. Excuse me, the question again?
    Mr. Stutzman. We see a lot of volatility in corn and 
soybeans and I am a northern Indiana farmer and as Mr. Stewart 
mentioned, ethanol has obviously played a huge impact in those 
prices. Could you talk about the rice market? Do you see the 
same volatility and what are the factors that affect the price 
of rice.
    Mr. Hundley. I think one of the things that I see with rice 
is we do not have--the futures market is not an effective place 
to hedge. Where you as a corn farmer, I mean, you can go in and 
daily trade corn or soybean futures as an effective hedge, and 
in rice, we do not have that.
    I have some opinions of why that is, but I do not know if 
it is true. A lot of the end-users do not use hedging as an 
effective tool. So I think that is the biggest difference.
    Mr. Owen. Mr. Stutzman, we are taking some steps and 
working with CME and the rice industry to try to improve 
convergence in futures. Another difference is rice is--you 
know, the United States only grows about three percent of the 
world's rice crop. However, we are the third or fourth largest 
exporter of rice. And 96 percent, or 95 percent of the rice 
grown in the world is consumed where it is grown. So the five 
percent that is left for export can be extremely volatile in 
price. Currently we are dealing with countries that are 
subsidizing their exports, India, Thailand and Brazil at this 
point. So that changes the dynamic a little bit.
    And rice is an expensive crop to grow. Hopefully we will 
get these things ironed out with the ability to hedge rice like 
we use futures for corn and soybeans and wheat and cotton, but 
we are not there yet. But we are working on it.
    Mr. Stutzman. Well, my wife for some reason keeps putting 
more rice on our plate at home, so you must be getting to her, 
so we are trying to do our part and help consume the rice crop.
    Mr. Owen. It is good for you.
    Mr. Stutzman. It is good for you. With that, I will yield 
back, Mr. Chairman.
    The Chairman. The gentleman's time has expired, all time 
has expired.
    Before we begin the process of concluding this hearing, I 
would like to take just a moment once again to thank 
Congressman Crawford for working very diligently to suggest the 
quality of hearing we could have and the different perspectives 
we could bring together. You were absolutely right, Rick, about 
that.
    And I would also like to thank Arkansas State University 
for these wonderful facilities. Rarely do we have this quality 
of a facility to have a field hearing in; thank you very much, 
staff, faculty, administration for that.
    And also, and I much attribute this to the fact that he was 
an old House Member before he went to that other body on the 
other side of the building in Washington, D.C., I would like to 
note on behalf of the Committee a very special appreciation to 
Arkansas's own Senator Boozman for coming and spending a half a 
day with us. As a Member of the Senate Agriculture Committee 
and a representative of this great ag state, he is just as 
concerned and focused as we are all here today on trying to 
figure out the things we need to determine so as to craft that 
next farm bill. So raise your hand, John, you cannot hide over 
there. Senators are Senators, you know.
    [Applause.]
    The Chairman. And with that, I would like to invite the 
gentleman from Arkansas, Mr. Crawford, to offer any closing 
remarks that he might have.
    Mr. Crawford. I thank the Chairman for his work in leading 
the Agriculture Committee in the House of Representatives. I 
want to say a particular word of thank you to the staff, the 
Committee staff, who do the hard work and the heavy lifting. 
They have done a wonderful job and I also want to thank the 
staff here at ASU for hosting us today.
    From the testimony we have heard this morning, it is 
obvious that our farmers face many challenges. I am encouraged 
though that as the Agriculture Committee begins the task of 
writing a new farm bill, that we will be able to protect 
farmers here in Arkansas and the Mid-South and across the 
country.
    So last, let me encourage everyone who did not get a chance 
to have their comments heard, that we do want to hear from you, 
you can submit your written comments for the record up until 
May 20, you can do that online at www.house.agriculture.gov/
farmbill. That is a tough one to remember, get with us after 
the hearing and we will be glad to write that down for you. 
Again, you have until May 20 to submit your comments and we do 
want to hear from you. Your opinion is very important.
    Thank you so much, everyone for being here. And with that, 
I yield back to the Chairman.
    The Chairman. The gentleman yields back.
    Any other closing comments from my colleagues?
    [No response.]
    The Chairman. Seeing none, thank you all again for being 
here today. I think we have heard some truly valuable input 
today and I would like to especially thank our witnesses for 
their time and their willingness to answer questions to the 
extent they have.
    As I said when we started, there are some challenges that 
vary by region and we need to tailor farm policy to reflect 
those unique requirements. I think it is also true farmers and 
ranchers across the country share some of the same experiences. 
So whether you raise fish in Arkansas or cotton in Mississippi 
or peanuts in Georgia, corn in Alabama or rice in Missouri and 
Louisiana, you want the same things. You want smart policies 
that allow you to keep producing food and fiber for America. 
Your input is important as a piece of this puzzle in putting 
together a farm bill that works for all farmers in all regions, 
all parts of the country.
    Once again, as my colleague Congressman Crawford said, if 
you want to submit comments, opinions and have it included in 
the official record, go to agriculture.house.gov/farmbill and 
fill out that form and send it back to us. Your perspective is 
vital to the process and I thank you all for participating 
today.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 30 calendar days to receive 
additional information and supplementary written responses from 
witnesses to any question posed by a Member.
    This hearing of the United States House Committee on 
Agriculture is adjourned. Thank you.
    [Whereupon, at 10:53 a.m. (CDT), the Committee was 
adjourned.]


   THE FUTURE OF U.S. FARM POLICY: FORMULATION OF THE 2012 FARM BILL

                              ----------                              


                         FRIDAY, APRIL 20, 2012

                          House of Representatives,
                                  Committee on Agriculture,
                                                    Dodge City, KS.
    The Committee met, pursuant to call, at 9:00 a.m. (CDT), at 
the Magouirk Conference Center, 4100 W. Comanche, Dodge City, 
Kansas, 67801, Hon. Frank D. Lucas [Chairman of the Committee] 
presiding.
    Members present: Representatives Lucas, Conaway, and 
Huelskamp.
    Staff present: Bart Fischer, Matt Schertz, Nicole Scott, 
Heather Vaughan, Suzanne Watson, John Konya, and Caleb 
Crosswhite.

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    The Chairman. This hearing of the Committee on Agriculture 
entitled, The Future of U.S. Farm Policy: Formulation of the 
2012 Farm Bill, will come to order.
    Good morning. Thank you all for joining us today for our 
final farm bill field hearing. Congressman Huelskamp, thank you 
for hosting us in your district. I like doing things in the 
neighborhood, coming from just across the line to the south, 
and I want to thank all of our witnesses for joining us today 
and extend a particular welcome to Scott Neufeld, who's come up 
from my great State of Oklahoma. I'll talk about him a little 
later.
    This hearing is a continuation of a process that started in 
the spring of 2010. Today, we'll build upon the information 
we've gathered in those hearings, as well as the 11 farm policy 
audits we conducted this past summer.
    We used those audits as an opportunity to fairly evaluate 
farm programs to identify areas where we could improve 
efficiency.
    The field hearings serve a slightly different purpose, 
though. Today, we're here to listen. I talk to producers all 
the time back in Oklahoma. I see them at the feed store; I meet 
them in my town hall meetings; and of course, I get regular 
updates from my boss, Linda Lucas, back home on the ranch. Yes, 
those of you who know Linda understand exactly what I mean by 
that, but I can tell you that the past three field hearings 
have demonstrated the tremendous diversity of agriculture in 
this country.
    We started in New York, where the farming operations tend 
to be smaller, and there are probably more trees in one acre 
than you have in most counties in the Big First District of 
Kansas, Tim. We learned how farm policy affects specialty crop 
growers and dairy producers in the Northeast.
    Next was Illinois, where we saw vast corn and soybean 
fields and heard how crop insurance is a critical risk 
management tool for farmers in the Corn Belt.
    In Arkansas, we saw quite a few irrigated fields, and yes, 
as a western Okie, I was a little envious of that, and we heard 
why crop insurance isn't quite as effective of a risk 
management tool in the Southeast.
    Today, we'll hear from a wide variety of producers who will 
no doubt have a different perspective than we got in those 
other regions. That's why it's so important that we offer a 
choice of policy options. The broad range of agricultural 
production in our country is what makes our country strong, and 
it also creates challenges, when we're trying to write a single 
farm bill that supports so many different regions and 
commodities.
    While each sector has unique concerns when it comes to farm 
policy, I'd like to share some of my general goals for the next 
farm bill. First and foremost, I want to give producers the 
tools to help you do what you do best, and that is produce the 
safest, most abundant, most affordable food supply literally in 
the history of the world.
    To do this, we must develop a farm bill that works for all 
regions and all commodities. It has to take into account the 
diversity of agriculture in America. Even within commodities, 
different programs work better for different regions, and 
that's why it's virtually important--vitally, I should say, 
important that the commodity title give producers options so 
they can choose the program that works best for them, whether 
it is by protecting revenue or price.
    I'm also committed to providing a strong crop insurance 
program for our producers. The Committee has heard loud and 
clear the importance of crop insurance, and it will be the 
backbone of our safety net. We will look for areas to improve 
crop insurance as we move forward.
    Last, we will work to ensure that producers can continue 
using conservation programs to protect our natural resources. 
I'm particularly curious as to your thoughts on how to simplify 
the process so they are easier for our farmers and ranchers to 
use.
    Beyond those priorities, I know there are a number of 
universal concerns facing agriculture across the country. For 
instance, my producers in Oklahoma are worried about 
regulations coming down from the Environmental Protection 
Agency, the EPA, and how they must comply with those 
regulations. I'm also aware that the death tax is creating 
difficulties for farming operations. I want to hear how these 
Federal policies are affecting producers here.
    Today, we'll be hearing from a selection of producers. 
Unfortunately, we don't have time to hear from everybody who 
would like to share their perspectives, but we have a place on 
our website where you can submit your comments in writing. You 
can visit agriculture.house.gov/farmbill to find that form. You 
can also find the address on postcards that are available 
around the room, I believe.
    As I said before, we don't have an easy road ahead of us, 
but I'm confident that by working together, we can craft a farm 
bill that continues to support the successful story that 
American agriculture is; and with that, I would turn to our 
host, my colleague from the House Agriculture Committee, Mr. 
Huelskamp, for any comments he might offer.

 OPENING STATEMENT OF HON. TIM HUELSKAMP, A REPRESENTATIVE IN 
                      CONGRESS FROM KANSAS

    Mr. Huelskamp. Well, thank you, Mr. Chairman. I'm pleased 
and honored to host this field hearing for the House 
Agriculture Committee, not far from my home town of Fowler and 
not far from our family farm. I appreciate you and Congressman 
Conaway and others that have taken the time and effort to hear 
what producers think about the farm bill, and what a fantastic 
place to be here and hear that, in the region once known as the 
Great American Desert.
    The pioneers turned it into one of the most productive 
agriculture areas in the world with hundreds of thousands of 
acres of wheat and corn and milo and soybeans, even cotton, and 
millions of head of cattle and pigs, and not to mention ethanol 
and dairy production.
    We do this in a time of mixed news: A lingering and 
devastating drought throughout much of the Plains, high 
commodity prices and record exports, matched with high cost for 
inputs and machinery and even a land price boom, an aging 
producer population and labor shortages, a slew of expensive 
government regulations from the EPA, USDA, Departments of Labor 
and Transportation.
    Additionally, we're all aware of the financial situation in 
Washington. Overspending has led to a massive debt problem. As 
America's farmers and ranchers, we will do our fair share, I 
believe, to solve this problem, but so should the more than 80 
percent of the farm bill spending for food stamps and other 
welfare programs, and we also expect Washington to do with 
less: Less regulation, less mandates, and less control over our 
way of life.
    Writing farm policy is especially difficult because there 
are so many variables affecting agriculture: Market volatility, 
monetary policy, international competition, the weather, and of 
course, new regulations out of Washington. With these in mind, 
the next farm bill must be designed with maximum flexibility 
and effective risk management for our farmers and ranchers as 
we feed a growing and hungry world.
    In order to meet these goals, it's absolutely critical that 
we actually listen and learn from the concerns and common sense 
of America's farmers and ranchers, so let me again thank you 
all for coming to share your thoughts with the Committee and I 
look forward to hearing from you today.
    The Chairman. Thank you, Congressman Huelskamp.
    The chair requests that other Members submit their opening 
statements for the record, so that witnesses may begin their 
testimony and ensure that there's ample time for questions.
    With that, I'd like to welcome our first panel of witnesses 
to the table: Mr. Gary Harshberger, a corn, wheat, milo, 
soybean and cow/calf producer, Dodge City, Kansas; Mr. Keith 
Miller, a wheat, sorghum, corn, soybean and cow/calf producer, 
Great Bend, Kansas; Mr. Dee Vaughan, a corn, cotton, sorghum, 
soybean, and wheat producer, Dumas, Texas; Mr. Scott Neufeld, 
cotton--sorry--wheat, sorghum, canola, alfalfa, cow/calf 
producer from Fairview, Oklahoma; and indulge me for a moment, 
as the Chairman of the Committee, to note that while he didn't 
put it in his bio, he and his wife Brenda and their two kids 
were recently named the Oklahoma Farm Bureau Family of the 
Year. I think that's very impressive and thank you, Scott, for 
bringing the real boss of your operation, Brenda, with you 
today also.
    With that, Mr. Terry Swanson. Mr. Swanson is a corn, wheat, 
sorghum, sunflower, and cow/calf producer from Walsh, Colorado, 
and with that, let's turn to, appropriately, our friend from 
Dodge City. You may begin.

STATEMENT OF GARY HARSHBERGER, CORN, WHEAT, MILO, SOYBEAN, AND 
               COW/CALF PRODUCER, DODGE CITY, KS

    Mr. Harshberger. Good morning. Is this on? Good morning, 
Chairman Lucas, Representative Huelskamp, and Representative 
Conaway. Welcome to western Kansas. Kansas's First 
Congressional District is the number one agriculture producing 
Congressional district in the nation. It's my honor to sit 
before you today and offer my perspective on farm policy as the 
Committee shapes the next farm bill. Thank you for holding this 
hearing in Kansas and thank all of you for being here.
    My name is Gary Harshberger. I'm a fourth generation Ford 
County farmer. After graduating college in 1987, I returned to 
the family farm. However, I can proudly say that I started 
farming roughly about the age of 10. Today we raise corn, milo, 
wheat, soybeans, and some cattle. I currently serve as Chairman 
of the Kansas Water Authority. I serve on the Bonanza Bioenergy 
board as well as the Arkalon Energy board of directors.
    I know that ag programs have done more than their fair 
share to reduce Federal spending and yet this bill will be 
written with much less money. Thank you for your efforts in 
trying to develop a farm package that works and can sustain 
farmers through the next 5 years. My testimony today will focus 
on five critical areas as they relate to my operation.
    First of all, while this Committee does not have 
jurisdiction over this particular area, I must share my concern 
with over-regulation. On one hand, the government wants to cut 
farm production--protection--cut farm protection, and on the 
other, it wants to saddle us with costly regulations proposed 
by out-of-touch politicians and bureaucrats. The child labor 
laws stemming from the Department of Labor, as well as diesel 
engine regulations coming from the EPA, are just two examples 
of regulatory burdens that cost my farm and consumers money.
    Over-regulation is cumbersome and costly and presents more 
of a threat to our nation's agriculture than possibly would the 
farm bill.
    On to the farm policy. I know this Committee has heard from 
producers across the U.S. that crop insurance is the most 
important program to protect in the next farm bill. I would 
like to echo that fact. The impact of the recent drought is a 
testament to the uncertainty farmers face each year, and the 
need to rely on crop insurance can never be more clear.
    There are many ways to strengthen the program, such as a 
personal T-yield system to current APH methodology, allowing a 
producer's APH's to more accurately reflect his yield 
potential. I would like--I would also like to see a better 
system in place for insuring limited irrigation practices.
    As water supplies diminish and water conservation practices 
are adopted, crop insurance should reflect this trend. RMA 
needs to be encouraged to implement the proposed limited 
irrigation crop insurance programs for 2013.
    Finally, please keep crop insurance tools purchased by 
producers protected from environmental compliance requirements 
or other--any other payment limitations that limit conditions 
that do not belong tied to insurance.
    There have been many policy avenues that have been offered 
by the commodity title. Shallow loss and deep loss have both 
been discussed. I believe a new program should protect yield 
and price in some form, as well as allow for flexibility. If 
revenue--if a revenue-type program is used, I believe a minimum 
price yield and plug--minimum price and plug yield should be 
included in a revenue-based program. My input prices have 
dramatically increased since the time I began farming. 
Recently, we have enjoyed higher commodity prices and positive 
profit margins. However, historically, this shows that this 
will not last, as input costs will increase until they meet or 
exceed the costs of production.
    Last year, for instance, I just saw a $48,000 increase in 
the price of a combine. I feel a price--I feel a minimum price 
will protect against a large drop in commodity prices and plug 
yields will help in times of consecutive years of yield loss, 
such as in a drought.
    A farm bill should provide assistance when I suffer losses 
beyond my control. I need a simple program in case of--in case 
my operation suffers a disaster. ACRE and SURE did not provide 
the efficiency and simplicity farmers needed, and while current 
loan countercyclical programs are simple, production costs have 
continued to rise, making 2008 levels no longer relevant to the 
realities of costs today.
    Water conservation is something I'm very passionate about. 
Last year's drought has dramatically affected the water supply 
in my region, as many others tied to the Ogallala Aquifer.
    We need to build stronger incentives for producers to plant 
less water-intensive agriculture commodities; strengthen 
existing programs like AWEP, where dollars are already being 
used towards water conservation; and allow use of conservation 
practices that use new technologies currently eligible within 
the NRCS's conservation stewardship program, all of which can 
benefit groundwater conservation.
    Last, I support the continuation of the farm bill energy 
title. It's imperative our country sustains the national--our 
national--our national security. Programs in the energy title, 
like the Bioenergy Program for Advanced Biofuels, have been 
positive for the U.S. I am proud that I produce local grains 
that go to local ethanol plants and contribute to renewable 
fuel sources that reduce our dependence on foreign oil and 
putting billions of dollars back into our local economies 
instead of sending them overseas.
    Many people talk today about cutting the energy title from 
the farm bill, and some even question the Renewable Fuel 
Standard in general. We have to remember that energy policy has 
been instrumental in maintaining our markets for our grain, as 
input prices and regulations have continued to increase 
tremendously. Cutting the legs out from underneath ethanol or 
biofuels at this time would be catastrophic.
    In closing, I'd like to reiterate that crop insurance is 
critical. I believe that the commodity title should be as 
simple as possible, as to allow producers flexibility for what 
works best in their region and on their farm. Finally, water 
and biofuels are critical to our local economies, and programs 
in the conservation and energy titles that benefit us in 
producing domestic biofuels and sustaining our water should be 
supported.
    Thank you, and I welcome any questions.
    [The prepared statement of Mr. Harshberger follows:]

Prepared Statement of Gary Harshberger, Corn, Wheat, Milo, Soybean, and 
                   Cow/Calf Producer, Dodge City, KS
Introduction
    It is my honor to sit here today before the House Committee on 
Agriculture and offer my perspective on farm policy as the Committee 
shapes the next farm bill. Thank you for holding this hearing in 
Kansas, and thank you Chairman Lucas and Congressman Huelskamp for 
being here.
    My name is Gary Harshberger. After college, I returned home to my 
family operation in Ford County and started farming in 1988 where we 
grow corn, milo, wheat and soybeans, and we also raise cattle. I serve 
as Chairman of the Kansas Water Authority and serve on the Bonanza 
Bioenergy and Arkalon Energy board of directors. Water and renewable 
energy can offer a sustainable future and are two areas I am 
particularly passionate about.
    I know that ag programs have done more than their fair share to 
reduce Federal spending and yet this bill will be written with much 
less money. Thank you for your efforts in trying to develop a farm bill 
package that works and can sustain farmers through the next 5 years. My 
testimony will focus on five critical areas as they relate to my 
operation.
Cumbersome Regulations
    Over-regulation has become a significant threat to the family farm. 
Although I understand this Committee does not have jurisdiction over 
this particular area, it is necessary that I share my discontent with 
what is happening at the farm level today. A couple of examples to 
highlight my concern are the Department of Labor's proposed child labor 
laws as they relate to agriculture and the diesel engine regulations 
coming through the Environmental Protection Agency. If the U.S. hopes 
to stay competitive with the rest of the world, it cannot continue to 
add more regulatory burdens on family farms like mine. These cost my 
farm and consumers money and disrupt the family farm work ethic on 
which this country was founded.
Federal Crop Insurance
    Even though producers across the U.S. have echoed Federal Crop 
Insurance as the most important program to protect in the next farm 
bill, I must place emphasis on it myself because it is crucially vital 
to my farming operation. The impact from the recent drought is a 
testament to the unknown certainty producers' face each growing year, 
and many are able to continue farming this year because of their 
investment in crop insurance.

  <bullet> Improvements are needed in APH methodology and the county T-
        yield system. A producer's insurable yield should reflect what 
        he and his lender actually expect to produce in a given year. 
        APH could be improved by using a personal T-yield system, which 
        would allow a producer's APH to more accurately reflect his 
        yield potential rather than the county's yield potential.

  <bullet> I would like to see a better system in crop insurance for 
        limited irrigation. Right now insurance is all or nothing. 
        There needs to be a viable policy in Federal crop insurance to 
        have limited type irrigation practices. There has been talk 
        about this at the state level, but nothing has been developed 
        yet. This type of policy would allow producers to raise feed 
        while using less water.

  <bullet> Please keep crop insurance tools purchased by the producer 
        protected from environmental compliance requirements or other 
        payment limit conditions that do not belong tied to insurance.
Commodity Title
    Many avenues have been offered for a commodity title in the next 
farm bill, and while proposals have focused on either a shallow loss 
type program or a deep loss type program, I hope that our new program 
protects yields and price in some form. I have not looked at how all 
these different options would impact my farming operation, but I did 
like the concept of being able to choose between policies, an 
opportunity that I understand was in the fall draft of the farm bill.
    If a revenue type program is used, I believe a minimum price and 
plug yields should be included in a revenue-based program. My input 
prices have dramatically increased since the time I began farming, and 
while we have enjoyed higher commodity prices, history shows they will 
not last. In order to protect my investment, I feel a minimum price 
will protect against a large commodity price drop and plug yields will 
help in times of consecutive years of yield loss, which I may soon face 
if the current drought continues.
    Without yield plugs, a scenario may be created where the program 
has little value to dryland in this area and can no longer offer 
protection to my farm if two consecutive years of yield loss are 
realized. Therefore, I feel this component is necessary in a revenue-
based program.
    A farm bill should provide assistance when producers suffer losses 
beyond their control. I need a simple program to take to my banker in 
case my operation suffers a disaster. ACRE is based on the state's 
income, and I could suffer a total loss due to an isolated weather 
event and never trigger a payment. The SURE program was very 
complicated and slow to pay when we did have a loss. The current loan 
and countercyclical programs are simple, but production costs have 
continued to rise making the 2008 price levels no longer relevant to 
the realities of costs today.
    A set minimum price is needed to protect producer income in the 
event of a multi-year low price situation. Ideally, this minimum could 
move upward over time should production costs also increase.
Conservation Title
    Last year's drought has dramatically affected the water supply in 
my region and many others tied to the Ogallala Aquifer south of here. 
As an irrigated farmer, water is something I am very passionate about. 
Every drop of water is valuable and should be utilized toward its best 
economic return, but when meters are over pumped and very little 
recharge to the aquifer through rainfall takes place, lasting damage to 
our water supply results.
    Programs in the 2008 Farm Bill like the Agriculture Water 
Enhancement Program (AWEP) under the Environmental Quality Incentives 
Program (EQIP) targeted dollars toward water conservation and have laid 
the groundwork for more focused programs, but I feel these programs 
stand to be strengthened by providing stronger incentives to producers 
to plant less water-intensive agricultural commodities. The 
Conservation Security Program (CSP) is another existing program where 
water-savings language can be applied.
Energy Title
    I support the continuation of a farm bill energy title. It is 
imperative our country sustains our national security, and produces as 
much of our fuel in the U.S. as possible. I am a believer in the ``all 
of the above approach.'' The energy title has helped to continue to 
expand biofuels production outside the Corn Belt and outside of 
traditional feedstocks. Programs in the energy title like the Bioenergy 
Program for Advanced Biofuels have been positive for the U.S. I am 
proud that I produce local grain that goes into local ethanol plants 
and contributes to a renewable fuel source that will lessen dependence 
on foreign oil.
    Many people talk today about cutting the energy title of the farm 
bill, and some even question the renewable fuels standard in general. 
We have to remember that energy policy has been very valuable in 
helping to maintain markets for our grain as input prices and 
regulations have continued to increase tremendously.
Conclusion
    In closing I would like to reiterate that crop insurance is 
critical. I believe that the commodity title should be as simple as 
possible and bankable. If there ends up being several different complex 
proposals, then I would hope that I have the flexibility to choose 
based upon my own operation. Finally, water and biofuels are critical 
to our local economies, and programs in the conservation and energy 
titles that benefit us while producing domestic biofuels and sustaining 
our water should be supported. Thank you.

    The Chairman. Thank you.
    Mr. Miller, you may begin when you're ready.

 STATEMENT OF KEITH MILLER, WHEAT, SORGHUM, CORN, SOYBEAN, AND 
               COW/CALF PRODUCER, GREAT BEND, KS

    Mr. Miller. Mr. Chairman, Ranking Member, and the Members 
of the Committee, thank you for the opportunity to join us 
today and share some thoughts about the necessity of an 
economic safety net for farmers and how possible improvements 
to the current program would allow us to achieve these goals.
    I currently farm in the middle of Kansas, Great Bend, 
Kansas, and serve on the board of directors of Kansas Farm 
Bureau and am the past Chairman of the United States Meat 
Export Federation, but I'm here today under my own steam and 
grateful for the opportunity to share my thoughts with you.
    Mr. Chairman, please allow me to thank you publicly for 
having Representative Huelskamp host this hearing here in the 
great city of Dodge City, and we're glad that he did that for 
us, so we appreciate that, Tim.
    Crop insurance is an important part of my operation and it 
is imperative to it. Protection enhancement of crop insurance 
programs ranks as the number one priority from a long list of 
farm organizations throughout the United States, and I cannot 
agree more. Agriculture is a highly erratic industry and is 
influenced by many variables, and some are beyond a producer's 
control. We can control seed, fertilizer, and those types of 
inputs, but we cannot control the weather and the markets. 
Simply put, during the development of the 2012 Farm Bill, crop 
insurance must be a priority.
    Enterprise units would allow farmers to access quality 
coverage at a lower rate. These units are being used in certain 
areas to--and we're having trouble with the irrigated and the 
dryland differential because it currently, if you insure under 
one, you have to be for both. We need more flexibility in that 
program.
    Limited irrigation should be a focus of the new program and 
we should look for ways that we can do that in the new farm 
bill. Limited irrigation will only help conserve the water 
supply which is so very limited here in the United States.
    Declining yields is another problem that we're having with 
our crop insurance, and it's because of the excessive amount of 
drought years and crop failures. Under the current situation, 
the production history will go down and it will increase costs 
to our consumers through their premiums. We need to find a 
better way of keeping the crop in that system.
    Improving data collection: Like many others, the data is 
very, very important in the technology on my farm. It only 
seems right that we should improve the data collection that FSA 
and RMA are using, especially tying crop insurance together 
with our other reporting services, so we would encourage you to 
work on that.
    Reform: as you know, the cuts in crop insurance for the 
last few years have been between $12 and $20 billion. 
Additional cuts would likely increase the premiums to our 
producers and make it unable for a lot of producers to be able 
to purchase that. We simply cannot afford additional cuts in 
today's high risk marketplace.
    Let me switch gears, Conservation: I live right next to the 
Cheyenne Bottoms and conservation is a very, very important 
part of my operation. I currently use EQIP in several different 
ways to try and limit the amount of erosion in our area and 
preserve that wetland.
    Regulation, as you know, has been a major part of our 
problem coming from the--from D.C. The CAFO regulations, EPA 
regulations, Clean Water Act, all them have been giving us a 
lot more new regulations coming down and we're having trouble 
meeting all those regulations, and we sure would encourage you 
to try and limit them.
    Exports: I couldn't tell you enough about exports and 
global economy and how the amount of opportunities we have 
there. The Market Access Program is crucial for that to stay in 
business. The multi-year impact of increased market development 
spending is equal to $35 in agriculture export gains for every 
dollar expended. That's a 35:1 return on investment. That is 
crucial for the future of the United States to keep that 
program intact.
    So in closing, I would encourage you to read my entire 
written testimony, because there are a lot more facts and 
figures that are in that, and I sure thank you for the 
opportunity for me to be able to share my thoughts with you as 
a Committee.
    [The prepared statement of Mr. Miller follows:]

Prepared Statement of Keith Miller, Wheat, Sorghum, Corn, Soybean, and 
                   Cow/Calf Producer, Great Bend, KS
    Mister Chairman, Ranking Member Peterson, and Members of the 
Committee, thank you for the opportunity to join you today to share 
some thoughts about the necessity of an economic safety net for farmers 
and how some possible improvements to the current program will allow us 
to achieve this goal.
    I'm a third generation farmer who grew up on the same farm where I 
currently live in rural Barton County, Kansas. When I started farming 
with my wife in 1976, my father was farming 400 acres and raised a few 
hogs. Since then, the farm has grown to over 7,500 acres and is a 
diversified grains, alfalfa and cattle operation.
    All of my daughters and sons-in-law work on the farm at various 
times, and my daughter, Dara, and her husband, Jason, work there full 
time throughout the year. Whenever I'm away from the farm, I can count 
on my family to ensure that things run smoothly with respect to the 
day-to-day business on our farm.
    I've been fortunate to have the opportunity to serve in a host of 
leadership capacities, in my community, my county, my state, and even 
internationally.
    Our family is deeply involved in our church, where I serve on the 
church council and I've had the good fortune to serve on my local 
school board for a number of years, including a stint as President, 
when we shepherded a major bond issue to pay for school improvements.
    I currently serve on the board of directors of Kansas Farm Bureau, 
and am a past Chairman of the United States Meat Export Federation.
    But I'm here today under my own steam, grateful for the opportunity 
to share my thoughts about the next farm bill and eager to engage the 
Committee in this important dialogue.
    Mister Chairman, please allow me to begin by publicly thanking my 
own Congressman, U.S. Representative Tim Huelskamp for his leadership 
in the Big First U.S. House District of Kansas, and for arranging this 
field hearing today in Dodge City.
Safety Net/Crop Insurance
    Our family is deeply committed to agriculture and to rural America. 
My wife, Connie, and I raised our daughters and run our farm with an 
eye to the future generations of our family who will help feed, fuel 
and clothe the world from our lands.
    Stability through the use of effective risk management tools is 
imperative for our operation. Protection and enhancement of crop 
insurance programs ranks as the number one priority for a long list of 
farm organizations in the 2012 Farm Bill process. I could not agree 
more.
    Agriculture is a highly erratic industry influenced by a multitude 
of variables beyond the producer's control. Farmers can use top quality 
seed, fertilizer, chemicals and best management practices, and still 
not be able to control the weather or the markets. Profit margins in 
the industry are such that it is critical that farmers have access to a 
strong, viable and flexible risk management program.
    Simply put, during the development of the 2012 Farm Bill, crop 
insurance must be a priority.
    In fact, there are several possible improvements that I would urge 
the Committee to consider that would allow the program to better meet 
the needs of producers in Kansas and across the nation.
Enterprise Units
    Enterprise units allow farmers to access quality coverage at a 
lower premium rate. The program should be made permanent, but 
unfortunately, given the diversity between irrigated and dryland acres, 
the concept doesn't work as well as it could. To address this situation 
I would recommend introducing additional flexibility within the program 
to allow producers to designate enterprise units by practice; 
specifically, differentiating between irrigated acres and dryland 
acres.
    In drought years, this differentiation would have allowed us to 
receive indemnity payments on the dryland acres while continuing to 
attempt to bring a crop to fruition on our irrigated acres.
Limited Irrigation Products
    Given our focus on the future we routinely look for ways to 
maximize production while conserving water. One option I would 
encourage the Committee to support is the concept of a limited 
irrigation insurance product. Currently, producers have only two 
choices: They must declare acres either irrigated or non-irrigated. An 
irrigated designation implies application of adequate water to produce 
the crop but also requires planting at higher population rates.
    Properly developed, a limited irrigation product would encourage 
conservation by allowing producers with limited or declining water 
supplies to plant lower populations and set a lower yield goal while 
maintaining insurance coverage at better than dryland levels.
Declining Yields
    Many parts of the nation have now endured successive years of 
disaster events. Under our current structure these consecutive bad 
years result in declining Actual Production History and subsequently 
increasing producer premiums.
    Alternatives should be explored to rectify this situation and could 
include the use of a personal `T' yield in addition to the adoption of 
a higher yield plug to allow a producer's insurable yield to reflect 
what he hopes to produce in a given year.
Improving Data Collection
    Like many operations, we have aggressively implemented technology 
on our farm. It seems only natural to continue to encourage the 
implementation of technology at FSA and RMA as well as on the farm 
allowing greatly improved accuracy in reporting and eventually adding 
the potential for real time data collection.
    We believe the 2012 Farm Bill should continue to encourage agencies 
to embrace technology to better serve producers and allow for more 
efficient delivery of all farm programs and indemnity payments.
Reform Wisely
    As you're well aware, recent cuts to crop insurance and the 
renegotiation of the SRA have resulted in $12 to $20 billion in 
savings. Additional cuts will likely result in increased premiums to 
producers or reductions in the products available or the level of 
service companies are able to provide. We simply cannot afford 
additional cuts in today's high risk marketplace.
    American agriculture relies on a strong safety net, delivered 
efficiently and effectively through the current public-private 
partnership. Producers across the nation are concerned and opposed to 
this notion that crop insurance delivery could be managed and delivered 
through an existing Federal agency.
    In addition, in no case should the crop insurance tools, which are 
purchased by the producer, be encumbered with environmental regulation, 
conservation requirements, or other conditions that fall out of the 
scope of insurance. They should also not be subject to payment limits 
or means testing, doing so would defeat the purpose of the programs and 
reduce their effectiveness in ensuring that producers, no matter how 
small or large have equal access to risk management tools and an equal 
opportunity to continue to operate their farms.
Conservation
    Let me switch gears and visit briefly about the importance of 
conservation. My farm is literally just a stone's throw from Cheyenne 
Bottoms. It's the largest marsh in the interior of the United States 
and was designated a Wetland of International Importance in 1988.
    The area is considered the most important shorebird migration point 
in the western hemisphere. Approximately 45% of the North American 
shorebird population stops at the Bottoms during spring migration. 
Because of our farm's proximity to this special place, those of us in 
Barton County understand and value the importance of conservation.
    Farm bill conservation programs help producers enhance soil and 
water quality, improve wildlife habitat, can assist with compliance 
with Federal and state environmental rules, protect agricultural and 
grass lands and provide various other benefits.
    Working lands programs, in my opinion, provide the most bang for 
the buck. Chief among those is the Environmental Quality Incentives 
Program which seems to the best and most effective way to implement 
multiple conservation practices. Whatever you can do to preserve EQIP 
funding and programs should be a top priority.
    On my farm, I take advantage of the benefits offered in EQIP three 
different ways: Terracing of my fields, waterways and water 
conservation. In addition, I have many acres enrolled in the 
Conservation Reserve Program.
Regulation
    Federal regulations are increasingly costly for the U.S. economy, 
including for farmers and ranchers. And here, if you'll allow me, I'd 
like to tip my hat to Congressman Huelskamp for his work keeping this 
issue in the consciousness of the Congress.
    In the last year alone, Federal regulators have finalized 
regulations that ask farmers to draw up oil spill prevention plans for 
their operations, apply for Clean Water Act permits for certain 
pesticide applications and report certain air emissions. Unless the 
courts rule otherwise, farms and ranches will likely be regulated for 
greenhouse gas emissions, and the Environmental Protection Agency (EPA) 
is proposing that Concentrated Animal Feeding Operation (CAFO) owners 
report sensitive information on their operations to Federal regulators. 
Given the wide application, cost and burden of Federal regulations, it 
is critical that the process by which they are proposed and finalized 
be open, transparent and fair to all, particularly the regulated 
community.
Research
    As you know, the world population is exploding. In any best case 
estimate, agricultural production must produce 70 to 100% more by 2050. 
Current efforts are likely to yield only a 40% increase in our 
production by that time. We have significant work to do.
    Federal programs must encourage both public and private investment 
in efforts that will produce new information to improve soil, 
environmental and socioeconomic conditions and allow producers to 
continue to produce high quality, affordable food on a shrinking land 
base.
    We must also strive to improve the acceptance and implementation of 
technology in agriculture. Our competitive advantage in world markets 
will be maintained only through the continued support and encouragement 
of technological advancements. To that end, our partners in the biotech 
industry should be encouraged to cooperatively develop protocols for 
products as they come off patent to allow producers to access and 
implement cost effective practices on their operations.
Exports
    I think we can all agree that in today's global economy, our 
government needs to be a full-fledged partner in helping expand and 
enhance agricultural export opportunities. The Market Access Program of 
the existing farm bill works and should be retained.
    Agriculture's trade surplus was nearly $30 billion 2 years ago. 
It's forecast to be $24.5 billion this year. Agriculture is still one 
of the few sectors of the American economy to enjoy a trade surplus, 
and without it, the overall U.S. trade deficit would be even worse.
    The multi-year impact of the increased market development spending 
is equal to $35 in agricultural export gains for every additional $1 
expended. That's a 35:1 return on investment.
    The Market Access Program protects American jobs and increases farm 
income. Every billion dollars in U.S. farm exports supports about 8,400 
American jobs. Given that U.S. farm exports are forecast to be $131 
billion this year, more than a million Americans can trace their jobs 
to these exports, thanks in no small measure to MAP and related 
programs that have boosted U.S. agricultural exports.
    And finally, the Market Access Program is a great example of a 
successful public-private partnership. It is administered on a 
reimbursable cost-share basis, specifically targeting small businesses 
and farmer co-operatives. While government's an important partner in 
his effort, industry contributions are now pegged at more than 60% of 
total annual spending on market development and promotion, up from 
roughly 30% only 2 decades ago.
Conclusion
    I manage my farm with a focus on longevity and sustainability. We 
appreciate the partnership we have with the Federal Government and 
programs to ensure stability in our efforts to produce food, fiber and 
fuel. The 2012 Farm Bill provides new opportunities to further define 
that partnership and to continue to protect and ensure that Americans 
and consumers around the world have access to safe and affordable food.
    Thank you for the opportunity to share our thoughts and our 
operation with you today. Should you ever find yourself in Barton 
County, Kansas, please, by all means, stop by for a cup of coffee.

    The Chairman. Thank you.
    Mr. Vaughan, you may begin when you're ready.

 STATEMENT OF DEE VAUGHAN, CORN, COTTON, SORGHUM, SOYBEAN, AND 
                   WHEAT PRODUCER, DUMAS, TX

    Mr. Vaughan. Mr. Chairman, Members of the Committee, thank 
you for holding this hearing here today. My name is Dee Vaughan 
and I am a corn, cotton, sorghum, soybean and wheat producer 
from Dumas, Texas. I currently serve as President of the 
Southwest Council of Agribusiness, an organization comprised of 
17 farm groups, 30 lending institutions, and about 70 main 
street businesses in Texas, New Mexico, Oklahoma, Colorado, and 
also here in Kansas.
    I want to begin by thanking this Committee for working hard 
to develop a consensus farm bill this last fall that not only 
would have met the needs of all producers and all regions and 
all crops, but have done so in a way that would have saved over 
$23 billion for the taxpayers. I believe this year's farm bill 
process should build upon the excellent work that was done last 
fall.
    There is one particular aspect of your work that I want to 
especially thank you for, and that is your focus on price 
protection. If Washington is truly serious about saving 
taxpayer dollars and less government intervention, price-based 
protection in the farm bill is the way to go about it.
    Think about a farm bill that provides meaningful price 
protection relative to today's production costs and price 
situation that could still end up not costing the taxpayer a 
dime for this protection over the next 5 years.
    Conversely, if history is any guide, you can be sure that a 
farm bill built on price protection, if needed, will prove to 
be the cheapest of the alternatives that have been presented 
before you. In short, a price-based farm bill policy that only 
kicks in when it is absolutely necessary is the conservative, 
fiscally responsible, and market-oriented approach that we 
should be striving to achieve.
    It seems that much of the farm bill discussion has centered 
on revenue-based options, but there are concerns about this 
route. First, I think there has been enough bad PR about direct 
payments over the last few years that producers want to avoid 
receiving any kind of a payment unless it is absolutely 
necessary. I also think there is concern about the fact that no 
policy should be so rich that it drives up input costs and land 
costs, not to mention the criticism.
    Second, I think there is a big concern that revenue 
approaches cut off help to producers just when they need it the 
very most, when revenue really drops, mainly due to prolonged 
periods of low prices. That's exactly when producers need farm 
policy most, and that's exactly when revenue approaches offer 
the least protection.
    Third, while I agree that revenue does not exactly 
duplicate what crop insurance does, there is at least some 
crossover, especially in the minds of the public and especially 
in the minds of the critics of the farm bill and crop 
insurance. It is important to remember in this exercise that we 
must pass a good farm bill, but we must also be able to defend 
it later.
    In my view, what was so important about what you did last 
fall is that you ensured that even if a producer chose a 
revenue option, there would be price protection for that 
producer if the bottom fell out, price-wise. You also worked to 
protect crop insurance from harm, which is a top priority as 
applied by farmers from across the country, and I totally 
agree. Whatever you do, please do not harm crop insurance. 
Proposals to link conservation compliance and to impose a 
payment limit cap on crop insurance are thinly veiled attempts 
to kill insurance for farmers. No question about it.
    From my perspective, at least, the Supplemental Coverage 
Option included in your plan of last fall could serve very well 
as the revenue component of the farm bill and do so without the 
negatives that I've mentioned about the revenue options.
    In closing, I firmly believe that if you ask rank and file 
farmers, no matter the crop, no matter the region of the 
country, the vast majority of them would tell you that if they 
were writing the farm bill, they would ensure that there is 
real price protection and that crop insurance would not be 
harmed in the process, but improved.
    Maybe it's the West Texan in me, but I tend to think that 
the right answer is usually the plain one. Washington should 
keep it simple. We rely on crop insurance for what it does 
best: Protect against production risk. We need an equally 
effective policy that provides protection against low prices 
over a sustained period of time such as we experienced in the 
late 1990's and early 2000's. While shallow losses can be 
devastating if they're repetitive, the risk producers fear most 
is a drop in commodity prices to below cost of production that 
lasts for several years.
    Thank you for the opportunity to present my views on the 
2012 Farm Bill and I look forward to answering any questions.
    [The prepared statement of Mr. Vaughan follows:]

Prepared Statement of Dee Vaughan, Corn, Cotton, Sorghum, Soybean, and 
                       Wheat Producer, Dumas, TX
    Mr. Chairman, Ranking Member Peterson, Members of the Committee, 
thank you for holding this hearing, and the important work you are 
doing to craft a good farm bill.
    My name is Dee Vaughan and I farm just about 200 miles southwest of 
here near the town of Dumas, Texas. I grow all the major row crops that 
work well in the Texas Panhandle--chiefly corn, cotton, sorghum, wheat 
and soybeans. I have been fortunate in the past number of years to get 
to serve in a number of leadership positions in farm and commodity 
organizations--including serving as President of the National Corn 
Growers Association from 2003 to 2004.
    I currently serve as President of the Southwest Council of 
Agribusiness, an organization comprised of 17 farm groups, including 
producers of cotton, corn, wheat, grain sorghum, rice, peanuts and 
cattle; 30 lending institutions; and about 70 main street businesses in 
Texas, New Mexico, Oklahoma, Colorado, and here in Kansas.
    I want to begin by thanking this Committee--earnestly thanking 
you--for working so hard to develop a consensus farm bill last fall 
that not only would have met the needs of all producers, regions, and 
crops in this country but would have done so in a way that would have 
saved taxpayers $23 billion. I believe we as farmers can all be proud 
of the fact that our rural representatives and agricultural leaders in 
Washington were able to come together in this way--a real contrast to 
how it appears other areas are working (or not working) in our nation's 
government. In short, I believe this year's farm bill process should 
build upon the excellent work that you did last year.
    There is one particular aspect of your work that I want to 
especially thank you for and encourage you in, and that is your focus 
on price protection. Plain and simple, a collapse in commodity prices 
is what keeps me up at night, and that is the risk I think this farm 
bill should address. Happily, this approach is also the most cost 
efficient. If Washington is truly serious about saving taxpayer dollars 
and about less government intervention, price-based protection in a 
farm bill, as a compliment to crop insurance, is the way to do it.
    Think about the prospect of a farm bill that provides meaningful 
price protection relative to today's production costs and price 
situation that could still end up not costing taxpayers a dime over the 
next 5 years. If the only thing title I of the next farm bill provided 
producers was this kind of price protection, this no cost scenario is a 
real possibility. Conversely, if a price-based farm policy did cost 
money, if history is any guide, you can be sure that it will prove to 
be the cheapest of all the alternatives.
    Easy to understand, bankable price protection is not a unique 
concept to me or anyone else and it certainly is not an unproven one. 
But it does feel a bit novel amidst all the other complicated proposals 
that are floating around out there which I'd be surprised if more than 
a handful of people could actually explain to you if asked. But worse 
than being complicated, these ideas--which all center on a revenue 
guarantee based in part on a 5 year Olympic Average (OA) price--offer 
farmers no real price protection and we know from experience that that 
alone is a big problem.
    The SWCA, which is made up of the major producer organizations from 
five states as well as dozens of lenders, suppliers and processors, has 
made price protection a key priority. This organization is unique in 
that it brings a lot of diversity and experience to the table via the 
leaders from these regional organizations, many of whom have served as 
officers in national commodity organizations. This past Fall, our group 
propounded a priorities document which is attached to this testimony in 
its entirety. With respect to the price protection, it stated the 
following:

        ``The priority in redesigning a countercyclical policy should 
        be to protect against deep and persistent price declines. 
        Whether achieved through a countercyclical revenue policy or a 
        price-based policy, the policy must provide effective 
        protection across commodities, and be reliable and bankable to 
        the producer. The marketing loan for commodities should also be 
        maintained and rates raised where practicable in order to 
        reflect today's costs of production.''

    Of the systemic risks (those beyond the control of the farmer) 
which farmers face, prolonged periods of low prices would be most 
devastating to the economy and is most worrisome to SWCA members--
producers, lenders and agribusinesses alike. Production losses are 
being addressed well by crop insurance. Single year revenue losses are 
being addressed well by crop insurance. But if a series of events like 
a strengthened dollar, above average yield worldwide, and a slowdown of 
Asian economies struck, causing corn and sorghum prices to decline to 
$3.00, beans to $7.00, wheat to $4.00, rice to $11.00 and cotton to 
$.65, our current farm policy would be ineffective and rural economies 
would suffer.
    The SWCA does not, and I do not believe a 5 year Olympic Average of 
price or revenue as a target provides adequate protection in this 
situation either.
    A 5 year rolling average price-trigger can offer assurance in the 
first and second year of a price decline, but by the third year the 
protection is severely eroded. And, of course, our experience from 1997 
to 2006 would confirm that prices can remain below cost of production 
for multiple years.
    The current debate reminds me of the 1995/1996 timeframe when 
economists assured us all that we had hit a new plateau of prices and 
that growing world demand for food and fiber would keep prices high.
    In 1995, the season average price for corn hit $3.24--an all time 
high. But over the next 4 years, prices fell to $2.71 in 1996; to $2.43 
in 1997; to $1.94 in 1998; and to $1.82 in 1999--that is a 44% collapse 
in prices over 4 years that was absolutely devastating, and that I 
expect most of us up here today would not have survived had it not been 
for the ad hoc Market Loss Payments that was provided beginning in 
1998.
    How would have a 5 year Olympic Average price safety net have fared 
during these times? Well it would have peaked in 1998 at $2.55, but 
then trailed off over the next 4 years to $2.07 in 2001, and then $1.92 
in 2002 and 2003. That is not what I, or my banker, would have 
considered adequate price protection.
    In 2010, the season average price for corn hit $5.40--a new all 
time high. But what if we shed 44% over the next 4 years just as we did 
in the late 1990's? How will farmers fare with corn prices at $3.02. I 
can tell you for this farmer and the community of Dumas, Texas, the 
answer would be not well.
    The current 5 year Olympic Average for corn relevant to 2012 is 
$4.55, which sounds like an attractive safety net. But if that safety 
net is allowed to trail down over a couple years back to the mid $3.00 
range or lower, then it is no longer helpful, and I expect farmers 
would be seeking ad hoc assistance again.
    Now I can tell you I am thrilled prices are still strong in the 
2011 marketing year and 2012 planting season, and I am hopeful they 
remain this way--but I am not confident they will. So bottom line, I 
think building in more relevant protection while prices are high is 
good insurance should prices go south again, as history has shown they 
most likely will.
    If one defines conservatism, fiscal responsibility, and market 
orientation by the traditional measures of how much something costs and 
how often it intervenes, price-based farm policy that only kicks in 
when it is absolutely necessary is the conservative, fiscally 
responsible, and market-oriented approach.
    Regarding revenue program alternatives, specifically those targeted 
at ``shallow losses,'' I would note just a few concerns. First, I think 
there has been enough bad PR from Direct Payments that producers want 
to avoid receiving any payment unless it is absolutely necessary. I 
also think there is concern that no policy should be too rich so that 
it drives up input costs and land rents, in addition to the criticism. 
Second, I think there is a big concern that revenue approaches cut off 
help to producers just when they need it most: when revenue really 
drops, mainly due to a prolonged period of low prices. That's exactly 
when farmers need farm policy most and that's exactly when revenue 
approaches fold-up tent. Third, while I agree that revenue does not 
exactly duplicate what crop insurance does, there is at least some 
crossover and, in the minds of the public and especially the critics, 
any effort to say there is no duplication between the two will be 
regarded, however falsely, as merely parsing words. It is important to 
remember in this exercise that we must not just pass a farm bill but we 
must also one day defend it as well.
    In my view, what was so important about what you did last fall is 
that you ensured that even if a producer chose a revenue approach, 
there would be price protection for that producer if the bottom ever 
fell out. You also worked to protect crop insurance from harm, 
something that so many farmers across the country say is there absolute 
top priority.
    I want to add my voice to the chorus and say, whatever you do, 
please do nothing to harm crop insurance. Proposals to link 
conservation compliance and to impose a pay limit on crop insurance are 
thinly veiled attempts to kill insurance for farmers. Period.
    From my perspective, at least, the Supplemental Coverage Option 
included in your plan of last fall could serve very well as the revenue 
component of the farm bill and could do so without any of the negatives 
of the other revenue approaches that I just laid out.
    In closing, let me just say this: I firmly believe that if you 
asked rank and file farmers in the country, no matter what the crop or 
region of the country, nine out of ten of them would tell you that if 
they were writing the farm bill, they would ensure that there is real 
price protection because that is the one thing crop insurance is not 
designed to take care of, and that crop insurance should be not just 
not harmed, but improved upon.
    It may be the West Texan in me but I tend to think that the right 
answer is usually the plain one. Washington should keep it simple. We 
rely on crop insurance for what it does best, protect against 
production and in-season price risk. We need an equally effective 
policy that provides protection against low prices over a sustained 
period of time such as was experienced in the late 1990's through the 
mid-2000's. While shallow losses can be devastating if they are 
repetitive, the risk that producers fear most is a drop in commodity 
prices to below cost of production lasting for several years.
    Thank you for the opportunity to present my views on the 2012 Farm 
Bill. I will be pleased to answer any follow-up questions you may have.
                               Attachment
October 12, 2011

    Dear Member of Congress:

    The Southwest Council of Agribusiness (SWCA) is a coalition of more 
than 100 businesses standing with producer organizations from Texas, 
New Mexico, Oklahoma, Kansas and Colorado to promote agriculture and 
policies that support this most important and fundamental of 
industries.
    Understanding that our nation's current fiscal situation, and the 
super committee process designed to address it, may force an early 
reconsideration of the policies of the 2008 Farm Bill, the SWCA offers 
the following for your consideration.
Budget Issues
    The members of the SWCA believe that farm policy designed to 
support a strong and dynamic U.S. agriculture sector is vital to our 
nation's economy and security interests. We also believe the current 
mix of policies has proven a great success by reducing government 
expenditures while providing a foundation for our nation's farmers to 
diversify and create and grow markets, commerce, and jobs to emerge as 
one of the few bright spots in the current dismal economy.
    Accordingly, as Congress considers any revisions to these important 
policies, we would ask that you carefully consider three important 
overarching facts along with our specific recommendations:

        First, stable agricultural policy makes for a strong 
        agricultural economy. In 2000, a time of great instability and 
        uncertainty, the U.S. value of farm sector production had 
        stagnated at $218.4 billion with little optimism for a 
        recovery. However, since the 2000 crop insurance bill, the 2002 
        Farm Bill, and subsequent improvements, farm sector production 
        value and other measures have shown steady growth, reaching a 
        net record $411.5 billion in 2011. Total net value added to the 
        economy from agriculture is also forecast to reach a new high 
        of $157 billion in 2011. As Washington seeks to provide greater 
        economic certainty through reform of the tax code, regulatory 
        relief, and other measures in order to fix all that is broken 
        in the economy, injecting uncertainty in the one sector of the 
        economy that is not broken seems especially imprudent.

        Second, stable agricultural policy costs taxpayers less. From 
        1999 to 2001, the government spent an average of $22.4 billion 
        to shore up the floundering agricultural sector, which had been 
        injured by, among other things, lost trade, a strong dollar and 
        strong worldwide crop production. Over the last decade, this 
        has changed. For example, from 2009 to 2011, annual spending 
        will average $11.6 billion--roughly \1/2\ of the amount being 
        spent 10 years earlier. When markets turn again, it will be 
        more cost effective to have stable and predictable policy in 
        place to address the losses rather than work on an ad hoc basis 
        to provide costly disaster assistance.

        Third, our growing world needs a strong and dynamic U.S. 
        agricultural sector. The global population is expected to rise 
        from seven billion to nine billion people by 2050, and so we 
        must become more productive on the world's limited arable land. 
        U.S. agriculture today leads the way in this regard, getting 
        more out of every acre of soil than any other nation, and doing 
        so in a sustainable way. We must not abandon this model.

    Because of these critical facts, we strongly oppose cutting the 
agricultural budget beyond the level that would otherwise be cut under 
sequestration, which essentially mirrors the level of cuts recommended 
by the bipartisan Simpson-Bowles Commission. Agriculture has 
consistently come in under budget over the past decade, and has made 
significant contributions to deficit reduction both in its mandatory 
policies (e.g., the 2008 Farm Bill and the 2010 crop insurance 
negotiation) and in discretionary funding accounts. We also strongly 
believe that the policies to achieve these savings should be developed 
by the House and Senate Agriculture Committees.
    While the SWCA considers all areas of the farm bill important, and 
specifically supports areas such as research funding and the FSA 
guaranteed loan programs, we are focusing our comments on the principal 
funding areas most likely to be affected should the super committee 
process address farm policy.
Federal Crop Insurance and Title I Farm Policy
    Since our nation's very beginning, we have had Federal policies in 
place to promote strong U.S. agricultural production. These policies 
have helped the U.S. agricultural sector become the most productive, 
dynamic, conservation-minded and diverse agricultural sector in the 
history of the world. Below are some specific policy recommendations we 
provide to ensure we do not break with this important tradition that is 
also a cornerstone of our economy and security.

    1. Any countercyclical element of farm policy that would replace 
        the current countercyclical program, direct payments, SURE, and 
        ACRE, in whole or in part, must effectively work for all staple 
        commodities and producers. The policy should provide reliable 
        protection by commodity, but should be carefully designed to 
        not distort planting decisions.

    2. Any cuts made to title I of the farm bill should be applied to 
        the respective commodities on a proportional basis.

    3. The priority in redesigning a countercyclical policy should be 
        to protect against deep and persistent price declines. Whether 
        achieved through a countercyclical revenue policy or a price-
        based policy, the policy must provide effective protection 
        across commodities, and be reliable and bankable to the 
        producer. The marketing loan for commodities should also be 
        maintained and rates raised where practicable in order to 
        reflect today's costs of production.

    4. The separate countercyclical mechanism should compliment, not 
        compete with or duplicate, the protection that can be purchased 
        through Federal crop insurance. Moreover, crop insurance should 
        be improved, especially as it relates to insurable yields 
        (i.e., the Actual Production History system) and specific crops 
        such as rice and peanuts that are currently under-served. Rep. 
        Randy Neugebauer's ``Total Coverage Option'' area-based 
        supplemental insurance authority is a well-crafted and cost 
        effective option for shallow loss coverage.

    5. Given declining budgetary resources, assistance should generally 
        be tailored to planted acres. However, we are concerned about 
        base acres, particularly in the western Great Plains, that are 
        currently in grass and receiving decoupled benefits. Because of 
        their conserving use, we would urge the consideration of 
        alternative positive incentives to keep this land in grass 
        where the economic benefits of breaking it out would be 
        outweighed by the potentially adverse environmental impact.

    6. Finally, outdated payment limits and arbitrary means tests 
        should be eliminated, and USDA's definition of a ``farm'' 
        should be updated. Notions of 2.1 million farmers in the U.S. 
        (based on USDA's definition which includes anyone who sells 
        more than $1,000 worth of agricultural production) lead to the 
        distortion of facts. Based on 2007 Census data, only 10% of 
        farms in the U.S. had gross sales over $250,000, and only 
        125,000 had gross sales over $500,000. These full-time family 
        farms are all-in every year and constitute the ``thin green 
        line'' that keeps America and much of the world clothed and 
        fed.
Title II Conservation Issues
    In the Southwest region of the U.S., conservation policies have 
provided important tools for farmers, ranchers, livestock producers, 
and landowners to make sound investments that promote wise use of soil 
and water resources. We are especially mindful this year of this fact 
considering the severe drought that has gripped the region. With this 
background, we offer the following principles:

    1. The Conservation Reserve Program (CRP) should be preserved. 
        While we are open to reduction in the overall acreage cap, we 
        maintain that this policy has served as an effective means of 
        concentrating our farming efforts on the most productive land. 
        The Grasslands Reserve Program (GRP) should be expanded, 
        especially if decoupled title I policies are substituted for 
        policies tied to planted acres.

    2. The Environmental Quality Incentives Program (EQIP) is the most 
        important conservation policy, providing critical cost-share 
        and incentives for farmers and livestock-producers alike. The 
        EQIP model should be expanded, and funding for the Agricultural 
        Water Enhancement Program (AWEP) within it should be maintained 
        and better directed to encourage the best water conserving 
        practices in agriculture operations possible.

    3. Given the critical water needs of a growing world population, a 
        greater emphasis should be placed upon water conservation in 
        all policies within the conservation title. The Southwest U.S. 
        has much it can teach the world about a wise use of scarce 
        water resources in agricultural production, but we feel 
        confident more can and should be done.
Regulatory and Competitiveness Issues
    Agriculture is a business subject to sharp and unpredictable swings 
in price, costs, and income, with producers operating on thin margins, 
which generally, helps to explain the need for the farm and 
conservation policies discussed above. This also explains why U.S. 
farmers and ranchers are sensitive to regulations imposed by the 
government. The imposition or threat of misguided environmental 
regulations, including a rash of recent endangered species listings, 
and the proliferation of manipulative regulations in the livestock 
sector have all had a dampening effect on the rural economy, with no 
apparent benefit. Accordingly, the SWCA is very supportive of efforts 
by Senator Mike Johanns and Senator Pat Roberts to sequester the 
regulatory activity and provide stability to the business environment. 
We offer one specific proposal that is fully within the purview of the 
House and Senate Agriculture Committees:
    The USDA Grain Inspection, Packers and Stockyards Administration 
(GIPSA) proposed rule should not be implemented because it will 
encourage frivolous lawsuits and end alternative marketing arrangements 
as we know them. Ultimately the proposed rule will set the beef 
industry back 30 years by stifling the innovative efforts of U.S. 
cattle producers to add value and enhance the quality and safety of 
their products. The bottom line is that this is yet another example of 
the government trying to interfere in the private market by telling 
producers when and how they can market their cattle.
    We hope that this information is useful as you continue to work to 
develop sound farm policy in the context of ongoing deficit reduction 
efforts. If you would like to know more about the SWCA and our 
membership, please visit http://www.southwest-council.com.
            Sincerely,

Southwest Council of Agribusiness.

    The Chairman. Thank you.
    Scott, you may begin when you're ready.

 STATEMENT OF SCOTT NEUFELD, WHEAT, SORGHUM, CANOLA, ALFALFA, 
              AND COW/CALF PRODUCER, FAIRVIEW, OK

    Mr. Neufeld. Mr. Chairman, Mr. Huelskamp, Mr. Conaway, 
Members of the Committee----
    The Chairman. Scott, turn that microphone just a little bit 
more towards us. Thank you.
    Mr. Neufeld. Thank you for holding this hearing on the farm 
bill. My name is Scott Neufeld and I'm a third generation 
farmer operating in a partnership with my father. We have a 
diversified operation, producing wheat, alfalfa hay for dairy 
use, canola, and grain sorghum. We also have a cow/calf herd 
and we raise stocker cattle on wheat pasture when the 
conditions allow. My wife and I have been very active in the 
Oklahoma Farm Bureau and I currently chair the Farm Bill 
Advisory Committee.
    If I were to sum up my views on the farm bill, my advice 
would be straightforward and twofold. First, please keep 
Federal crop insurance strong and use the opportunity to make 
improvements; and second, make the focus of the farm bill be 
about addressing price protection during a multiyear downturn, 
a risk that crop insurance was never designed to address. If 
Washington does these two things, this farm bill will be a 
great success.
    It's a testimony to the success of crop insurance 
protection and the current farm bill that producers are 
planting again this spring and moving forward with no outcry 
for ad hoc disaster assistance. The risk management tools that 
were in place during our recent drought were adequate and 
cheaper than funding additional disaster programs.
    Areas where crop insurance can be improved track closely 
with the recommendations that Chairman Lucas and his colleagues 
made last fall. These recommendations include improving actual 
production histories to deal with multiple year losses so those 
APH's, and ultimately insurance coverage, reflect true 
production potential. I also appreciate the extensive 
enterprise units and the ability to divide enterprise units 
from irrigated versus non-irrigated practices.
    Separate from the farm bill, I appreciate this Committee's 
leadership in closely monitoring what USDA is doing regarding 
crop insurance. In an effort to try to lower rates for some 
producers, I'm concerned that it may price the rest of the 
country out of coverage.
    I also strongly oppose applying payment limits and means 
testing to crop insurance. The agricultural economy has driven 
many family-owned operations to become larger to spread risk 
and investment in capital. Why do we penalize the larger 
producer by restricting the amount of protection that he would 
be allowed? We need to change our mindset to a per acre basis, 
not a per operator basis. I also oppose entangling crop 
insurance with existing conservation compliance requirements, 
and I urge Members of Congress to oppose this effort.
    As to the need for real price protection on the farm bill 
side of the equation, nearly everyone in this room can probably 
remember back to 2008 when we saw wheat prices climb to upwards 
of $12 to $13 per bushel and we all thought we had reached a 
new plateau; but then a year later, in the 2009 marketing year, 
we can all remember seeing those prices drop dramatically to 
levels we thought we would never see again.
    I can remember going to the elevator the day that I saw 
wheat prices with a ``$3'' in front of them and thinking to 
myself, how am I going to make this work? Many producers were 
forced to sell at that level as well. While short-lived, it 
reminded me that the input costs that we deal with every day 
don't cycle as fast as the prices being bid at the elevator.
    On this issue, here is my deep concern. All the revenue 
program ideas floating around out there will not provide the 
kind of protection farmers need if the depressed prices we just 
talked about remain in place for several years. If stuck at 
those levels, Washington would be inundated by calls for costly 
and unbudgeted emergency relief legislation. Neither taxpayers 
nor farmers can afford to go down that road again, so I call on 
Congress to focus the farm bill on providing real price 
protection for farmers in these periods of prolonged low 
prices. Fortunately, thanks to the Chairman and the work of his 
Committee, the 2011 package to the select committee would have 
met this basic test.
    I would also like to stress the importance of NAP and the 
Livestock Forage Program to livestock producers like myself. 
Producers in my area also value the CSP and the EQIP programs. 
These initiatives, along with the MAP and foreign market 
development, along with aggressive agricultural research, are 
all modest in investment dollars but still unsung heroes in 
U.S. farm policy.
    So let me start--let me finish where I started. As 
producers, we have two factors that affect our ability to be 
successful: yield and price. Please do not harm but build on 
crop insurance to provide yield protection, and please don't 
stray from the main mission of a farm bill; that is, providing 
a safety net by offering sound multi-year price protection. 
Passage of a 2012 Farm Bill would provide much-needed certainty 
to the future of agriculture and the businesses that support 
it. Thank you for allowing me to testify today.
    [The prepared statement of Mr. Neufeld follows:]

 Prepared Statement of Scott Neufeld, Wheat, Sorghum, Canola, Alfalfa, 
                  and Cow/Calf Producer, Fairview, OK
Introduction
    Chairman Lucas, Ranking Member Peterson, Members of the Committee, 
thank you for holding this hearing in the heart of wheat country, where 
producers understand and have experienced the need for sound farm 
policy, especially over the last 18 months. I appreciate the 
opportunity to offer testimony as a producer who is impacted directly 
by the legislation that will be drafted.
    My name is Scott Neufeld. I am a third generation farmer operating 
in a partnership with my father. We have a diversified 3,000 acre 
operation of wheat, alfalfa hay for dairy use, canola, grain sorghum, 
and a cow/calf herd. We also graze stocker cattle on wheat pasture as 
conditions allow. My wife and I have been actively involved with the 
Oklahoma Farm Bureau (OFB) serving on county and state boards and 
committees. Most recently, I was appointed to serve on the OFB Farm 
Bill Committee, which was given the task of studying and providing 
input into the drafting of the 2012 legislation. My wife also serves on 
the Oklahoma Farm Service Agency (FSA) State Committee.
Current Climate
    I first want to commend you and the Committee for leading the way 
in the effort to produce bipartisan and bicameral legislation for the 
Select Committee last fall. The effort to work together was commendable 
and showed we can and will work out our differences in the current 
climate. A great framework was built for the discussions that have been 
ongoing these past several months. I understand the soaring and out of 
control debt this country faces weighs heavy on each of you as it does 
your constituents. I also recognize that in the face of increased 
global demand for food commodities combined with a weaker dollar, 
commodity prices are higher. But, as Chairman Lucas has stressed 
numerous times, we should not be fooled into putting a weakened farm 
policy in place. These current conditions occurring at a time where we 
need to draft a sound farm policy present challenges and dangers.
    The American public enjoys the safest, most abundant, and most 
affordable food supply of any country in the world. Traveling abroad 
will dispel any doubt one may have. Yet, the general public is becoming 
more and more removed from where and how their food is grown and 
processed. Consumer understanding of the risks and investments 
agriculture makes on their behalf is under-appreciated. Somehow we must 
continue to work to bridge that gap and fortify consumer rapport with 
the American farmer. Public perception may only be perception, but 
perception is reality and we must deal with this issue and not ignore 
it. For example, in my opinion, the attack on Direct Payments is a 
result of a misinformed public. We haven't done enough to educate the 
public about how those payments are really used. From funding 
conservation efforts to helping buy up crop insurance coverage to 
making investments in our rural communities or replacing a piece of 
well-used equipment, these are real expenses that help us efficiently 
produce a safe food supply.
    I would like to remind everyone of the recent past where in 2008 we 
saw wheat prices climb to upwards of twelve to thirteen dollars a 
bushel. We thought we were on a new plateau or so we hoped. A year 
later in the 2009 marketing year, we saw those prices drop dramatically 
to levels we thought we would never see again. I remember going to the 
elevator the day we saw wheat prices with a $3 in front of it again and 
thinking, ``How am I going to make this work?'' Many producers were 
forced to sell at those levels to meet financial obligations. 
Fortunately, that cycle didn't last long but it allowed us to 
experience first-hand how the input costs that we deal with everyday 
didn't cycle as fast as the prices being bid at the elevator.
    Agriculture has been a bright spot and shining star in the current 
nation-wide recession. We have continued to create new jobs and 
establish a trade balance favorable to the U.S. economy. Let's not 
forget how important agriculture has been to the well-being of rural 
America as well as the supply of food and fiber to every U.S. citizen.
    It is critical to work toward passing legislation during this 
session to provide some certainty to producers across the United 
States. An extension without a 5 year reauthorization is not adequate 
to allay the uncertainty that exists out there. A great framework has 
been put forth in the proposal to the Select Committee and the 
conversations are in place now to produce a workable and acceptable 
solution to the challenges agriculture face.
A Look Back
    I was taught at an early age that a good way to make a plan forward 
is to look back on the past and see what has worked and why, and see 
what has not worked and why. The 1996 Farm Bill offered flexibility 
that had not been experienced previously. In the global and volatile 
markets of today, flexibility must remain a guiding principle as we 
craft new legislation. The 2002 and 2008 Farm bills continued on those 
principles including protection against low prices which lessened the 
need for ad hoc disaster assistance and have provided good management 
tools for producers to navigate risk. Did previous farm bills 
accomplish their goals? In most cases they have served producers well. 
Could they be improved? Always.
Some of the Challenges
    As agriculture is transitioning, smaller bi-vocational producers 
are discontinuing their farming interests and older generations facing 
retirement are not selling their land but letting others operate it. It 
is becoming more difficult for operators to explain to land owners 
their options and keep current with sign-ups and know what they are 
signing. In my area, crop share arrangements are a popular renting 
agreement. While we as producers studied the options and knew which 
choices would be to our benefit, the complexity of explaining the 
details to a disengaged landowner has been an issue, therefore, causing 
confusion and in some cases even noncompliance.
    ACRE and SURE are two examples of programs that are too complex. 
Program technicians in the local FSA office working scenarios on the 
same producer would come up with two different results. Furthermore, 
the triggers needed to make the program work encompassed too large of a 
geographical region. The marketing prices needed to calculate payments 
were far too removed from actual loss. Receiving a payment 14-16 months 
after actual production loss is not beneficial.
    During the last 5 years, we have also seen our input prices 
steadily move higher. Most recently we have seen fuel prices soar. 
Seed, insurance, taxes, labor, and fertilizer all continue to increase. 
The CCP program has provided a floor but with the rising prices and 
costs, these levels are no longer relevant and need to be adjusted to 
offer true price protection.
Some of the Positives
    When we look at the concepts of the 2008 Farm bill, we see it was a 
multi-faceted safety net including these components: Crop insurance, 
CCPs, MAL/LDPs, Direct Payments, ACRE, SURE, and conservation in the 
form of EQIP, CSP, CRP, and LFP, etc. Farm policy has become complex 
and for a reason. A ``one-size-fits-all'' approach cannot address the 
differences across commodities and regions of the country and even the 
same commodities across multiple regions. A cotton, peanut, or wheat 
producer from the Southern plains has many different risks, markets, 
and inputs as does a corn or soybean producer from the upper Midwest. 
The same differences are evident from the producers in Arizona and 
California to those in Pennsylvania and New York. Let's discuss several 
of these farm policy components.
Crop Insurance
    Crop insurance has been the one tool that has provided us with a 
bankable guarantee to be able to go to our lenders and show them a 
minimum of what we could expect out of a crop. It has been flexible and 
provided coverage for most of the major crops in my area. I want to 
express my appreciation for the pace at which we were able to provide a 
full policy for Winter Canola in Oklahoma and the Southern Regions.
    We have been pleased with the options and protection this tool has 
given us. Many producers in Oklahoma, Texas, and Western Kansas would 
be in a much different situation right now had it not been for a sound 
Crop Insurance policy that protected us from the historic drought we 
went through last fall, spring, and summer. While much of the drought-
pressured areas have received adequate rainfall, many areas still 
remain well below normal and water sources for our livestock are not 
replenished. Irrigation reservoirs in southwest Oklahoma are still at 
less than \1/3\ capacity to begin the growing season. Pastures will 
need rest to recover stands and nutrients needed to return to previous 
levels of production. When we see the record amount of indemnities paid 
out this last growing season and crop insurance coming under new 
attacks, none of us should forget the seriousness of the drought we 
have just come through. We should also remember the billions in cuts we 
have already taken. It is a testimony to the success of crop insurance 
protection that producers are planting again this spring and moving 
forward with no outcry for ad hoc disaster assistance. The risk 
management tools that were in place were adequate and cheaper overall 
than funding additional disaster programs.
    I also strongly oppose applying payment limitations and means 
testing to Crop Insurance. The agricultural economy has driven many 
producers to become larger to spread risk and investment in equipment. 
A farmer producing crops on 1,000 acres of cropland has to have 
adequate capital invested to efficiently farm these acres. A 
partnership or family corporation that has gone together and is 
producing crops on 10,000 acres has the same risk per acre as the 
smaller producer. Why would we penalize the larger producer by 
restricting the amount of protection they would be allowed? We need to 
change our mindset to a per acre basis, not a per operator basis.
    As producers already enrolled in the farm bill, conservation 
compliance is already a requirement to participate so I cannot see the 
need to entangle Crop Insurance with existing requirements and I urge 
Members of Congress to oppose this effort.
    It doesn't make sense to put limits on larger acreages when farmers 
face payment limits under the farm bill. Crop insurance is their only 
real protection. Taking protection away from larger farms, which are 
still family-owned, will have a dramatic and negative economic and 
social impact in rural communities.
    There is unwarranted criticism that current Crop Insurance 
offerings are driving up land and rent values and discouraging entry 
level producers. I believe the converse is actually true. If a young 
producer can't find levels that guarantee at least his variable costs 
to be covered, a lender is less likely to finance him. A beginning 
producer with limited capital and a higher level of debt to get started 
doesn't have the ability to absorb the level of risk an established 
producer does.
    I am also aware of the process that the corn and soybean commodity 
groups have been through in the re-rating of their actuarial tables. 
The methodology is being reviewed to make sure it was sound and I am 
concerned about what the re-rating could do to other crops in the 
Southern Regions.
    One area that Crop Insurance is not meant to cover is against 
chronic low prices. We always hope that between the base price and the 
harvest established price under crop insurance that there are break-
even scenarios at one of those levels. But, what happens when we hit a 
multi-year downturn and don't have protection in place? Wheat prices at 
$3-$4 don't offer much hope at our current input levels. One could 
argue that if prices remain at these levels, we should just plant 
alternative crops and under decoupled farm bill policies we do have 
that option. That being said, the markets for those substitute crops 
tend to move in the same direction. Price-based protection is 
critically important to helping us stay in business during times of 
chronically low prices.
Direct Payments
    The Direct Payment portion of the current farm bill has become a 
target for huge criticism. They have been hard to defend in times of 
good profitability for agriculture. While maybe hard to defend against 
unfair attacks, they have been easy to understand and administer for 
FSA, one of the parts of the suite of farm bill policies that is green 
box WTO compliant, and a payment you could take to the bank. An unseen 
benefit of the Direct Payments not often talked about is the impact 
they have on our rural economies. These payments are usually used 
locally to pay expenses to the businesses that provide parts and 
services we need which in turn support our local economies.
NAP and LFP
    Another part of farm policy often overlooked is the Noninsured Crop 
Disaster Assistance Program (NAP). In Oklahoma, forage crops are 
important and many of these are grown on cropland acres but are not 
insurable through Crop Insurance. Grazing is also a large part of many 
of the wheat acres planted in our state. NAP has given us some 
protection in years where forage has been well below normal. NAP is not 
a ``solve all the problems'' policy, but it did provide about 20% of my 
own farm's lost revenue to assist in the loss of production our alfalfa 
hay crops experienced this past year. The indemnity made up only a 
small portion of the production loss we faced, but it did help make 
payments and get our operation through to hopefully a better year 
ahead.
    LFP or Livestock Forage Program also paid out indemnities this past 
year in the drought stricken areas of our state. LFP did not keep us 
from culling our herd size but this assistance did allow us to buy 
several loads of feed we were short because of the inability to grow 
forage of any kind this past year, and still maintain our genetics in 
breeding stock. While this program does not have a baseline, it is my 
suggestion that these programs be fully funded going forward.
CRP
    CRP has been useful to move highly erodible lands out of 
production. Because of the growth in the ethanol industry, feed grains 
have been in short supply. We should consider bringing out some of the 
acres that were enrolled in an environmentally responsible way to aid 
in the production of additional feed grains. We will need to continue 
to be careful stewards of the land and water resources we have enrolled 
in CRP being careful not to disturb highly erodible lands. Seeing 
pictures of the dust bowl reminds me that the conservation efforts put 
forth in this area, and particularly in the drought regions of this 
country, have prevented another dust bowl from starting again. Without 
the combination of the CRP and no-till or minimum till cultivating 
practices, the drought of 2011 would have been much worse. This is 
testimony to the efforts of producers all over the United States and 
their ability to be good stewards and adopt best management practices 
for each tract of land they operate.
Conservation
    Conservation initiatives need to remain a significant part of the 
farm bill; however, I would urge the focus be on working lands rather 
than land retirement initiatives. The current cost share initiatives 
are working and most producers know how they work. I would encourage a 
streamlining of initiatives similar to the proposal to the Select 
Committee last fall, not as to impact the dollars spent but to again 
make the initiatives less complicated and more user friendly. Producers 
in my area like EQIP and CSP. With EQIP being a cost sharing initiative 
to promote quality efforts on farms that need some additional work and 
CSP offering incentives to engage in producer selected options to 
improve the environmental quality of their farms, I can't help but 
think they should be funded at current levels and other initiatives 
streamlined to fit within the scope of these two initiatives. Modeling 
new initiatives that producers already understand should be the goal. 
Conservation is a priority of any responsible producer today.
Research
    Our land-grant universities in partnership with ARS have been 
critical in providing valuable non-biased research and extension 
education to many of the seed, chemical and management techniques being 
promoted to improve our efficiency. The role that ARS plays is often 
not seen by producers and the public but greatly increase the 
effectiveness of the research and extension efforts of the land-grant 
universities. The Wheat Quality Labs play huge roles in our marketing 
efforts. I urge continued emphasis on funding in the next farm bill to 
promote the level of research that will ultimately help us to feed nine 
billion people using less land and fewer resources.
Marketing
    I want to express appreciation for the work in continuing to open 
markets around the world. The Free Trade Agreements with Columbia, S. 
Korea, and Panama will open more doors to the foreign agricultural 
trade. I urge full funding of MAP and FMD marketing tools that continue 
to work toward opening markets and maintaining existing ones around the 
world. Many of these tools match producer dollars to assist with 
marketing their commodities.
Importance of Not Affecting Planting Decisions
    Red flags have been waved around concerning the part of the 
proposal to the Select Committee that considered raising target prices 
to more relevant levels. While flexibility is paramount and we do not 
want a government program influencing planting decisions, the levels I 
saw were still well below break-even prices and I cannot imagine how 
they would drive planting decisions. In fact, given shallow loss 
revenue programs would, by definition, trigger faster and more often, 
it would seem that such programs that guarantee revenues based on 
higher prices and yields would be more susceptible to this kind of 
criticism.
Conclusion
    Producers understand the crisis in our country and we are willing 
to do our fair share in reducing the deficit. We need sound crop 
insurance to cover the yield component of risk, price protection under 
the farm bill to insure against steep and chronic price declines, and a 
conservation title focused on improving practices on working lands. It 
is a huge testimony to the success of crop insurance protection 
combined with the other facets of farm policy that producers are 
planting again this spring and moving forward while there was no outcry 
for an ad hoc disaster program like there was in the late 1990s. We in 
agriculture have the tools and management ability to absorb minor 
changes in prices and yields. Concepts and program suggestions aimed at 
insuring losses as little as 5-10% are not warranted. American Farm 
Bureau has opposed these types of programs and stated that shallow loss 
coverage is fiscally irresponsible. Our focus must remain on a safety 
net that is based on crop insurance and protects from steep price 
declines over time and due to unforeseen circumstances, not on 
guaranteeing a profit.
    I commend the efforts of you and your staff in the work that has 
been accomplished this far. I thank you for the opportunity to offer 
testimony as a part of the process and look forward to working with you 
as we move this process toward the passage of a 2012 Farm Bill.

    The Chairman. Thank you.
    Mr. Swanson, turn that microphone just a little bit more 
towards you and begin when you're ready.

 STATEMENT OF TERRY SWANSON, CORN, WHEAT, SORGHUM, SUNFLOWER, 
                AND COW/CALF PRODUCER, WALSH, CO

    Mr. Swanson. Well, thank you, Mr. Chairman, Mr. Conaway, 
Mr. Huelskamp. I appreciate the opportunity to testify today. 
My name is Terry Swanson and I farm and ranch in southeast 
Colorado with my wife, Marcella, and my son Miles and his 
family. Our farm is located 20 miles from Kansas and 20 miles 
from Oklahoma. Our principal crops are grain and forage 
sorghum, wheat, corn and sunflowers, all grown under dryland 
conditions. Our cattle operation includes a cow/calf enterprise 
and growing stocker/feeder cattle. I'm here to speak on behalf 
of my operation and others like it in my area.
    Why am I here? This is a question I think that has to be 
answered first. My son is a fourth generation farmer in Baca 
County and is raising the fifth generation to make his home 
there. We want to contribute to the nation's food supply and in 
turn, to its economy, by providing an ample, reasonably-priced, 
secure, safe food supply. In turn, we expect to be able to live 
and have our livelihood in a relatively safe, secure 
agricultural environment that will sustain us and those that 
come after us.
    It's important for me to acknowledge the work that the 
Committee did last fall, presenting the Super Committee with a 
package that not only addressed the needs of the ag community, 
but it also saved our nation $23 billion. The product that the 
Committee did put together did all of the--virtually all of the 
things that I'm going to talk about here today. You should be 
proud, and we are grateful.
    We have had an unfortunate cropping sequence for the last 8 
to 10 years in southeast Colorado. The rotation is one year of 
good crops and the other one is one year of indemnity payments, 
and those things are the only thing we've had to take to the 
bank. Therefore, I strongly feel that the next farm bill must 
have, like the rest of the people on the panel mentioned, have 
crop insurance as its backbone. Please do no harm to crop 
insurance, but rather, improve it with better APH methodology 
and a T-yield system. Workable insurance products for forage 
sorghum and trend yields will also help for all crops.
    The commodity title: like crop insurance, the commodity 
title must provide provisions for systemic risks, such as 
drought, to be viable for this area of southwest Kansas, 
Oklahoma Panhandle, Texas Panhandle, and all of eastern 
Colorado.
    There are two kinds of risks: one of them is production 
risk and the other one is price risk. For the next farm bill to 
accomplish the goals that we have set before us, we must 
address both. As you can see, I have enough gray hair to show 
you that I've experienced both of these risks many, many times, 
and you can't afford to ignore either one of them.
    The end product expressed in the commodity title must not 
favor one crop over another at signup. I must be able to choose 
my cropping decisions agronomically at the farm, rather than at 
the FSA office, choosing whichever program will pay the best.
    The program offered should not only pay out with the loss. 
I should be able to provide the producer--it should be able to 
provide the producer a bridge between successful crops and 
markets and those that are difficult due to circumstances 
beyond the farmer's control. These circumstances can be 
environmental factors or they can be market influences that are 
unforeseen and, therefore, unable to be offset with other risk 
management tools.
    I wanted to bring with me a bag of soil. I was going to 
call it a bag of dirt, but my son is a soils major and he said 
you have to call it soil, but I was advised otherwise, but 
everything that we do starts with the dirt. If we don't take 
care of the dirt, it won't take care of us. Therefore, I'm 
passionate about conservation.
    I live in the epicenter of the Dust Bowl. I know the 
effects of poor conservation practices. I've implemented CSP 
and EQIP contracts and their associated practices on my farm 
and my ranch, and I've seen immediate positive results from the 
technical support and the financial remuneration that these 
programs can provide. They provide a segue from current 
practices to those of enhanced conservation, not only for this 
generation of producers, but for all who are on the land in the 
future, and I might add, that's an investment in the 
sustainability of this nation's food supply.
    We live in a very water sensitive area. The crop that I 
raise a lot of, sorghum, is the most water-efficient crop that 
we have available. I would hope that we could have that 
efficiency be expressed and encouraged in the conservation 
title.
    Again, provide the producer with the right choices and he 
will effectively and safely produce an ample food for this 
country's nutrition and security as well. Thank you very much.
    [The prepared statement of Mr. Swanson follows:]

 Prepared Statement of Terry Swanson, Corn, Wheat, Sorghum, Sunflower, 
                    and Cow/Calf Producer, Walsh, CO
Introduction
    I thank Chairman Lucas, Congressman Huelskamp and the entire House 
Committee on Agriculture for holding this hearing in Kansas, the heart 
of America and farm country. I also thank you for the opportunity to 
submit testimony on the impact future farm policy under the next farm 
bill will have on my operation.
    My name is Terry Swanson, and my wife Marcella and I grow grain 
sorghum, wheat, corn, forage sorghum, sunflower, and raise cattle on 
our farm and ranch in southeast Colorado near Walsh--an area that I and 
those before me refer to as the epicenter of the Dust Bowl. It is a 
challenging area to live and work, but we have been doing so for 42 
years now, and there are several pieces in the farm legislation puzzle 
that enable us to manage our risks and continue to live and operate 
efficiently today. I live 20 miles from Kansas and 20 miles from 
Oklahoma and am honored to share my Colorado perspective.
    I appreciate the work put forth by this Committee in developing the 
next farm bill and the bipartisan approach agriculture has taken up to 
this point to try and develop a comprehensive farm bill package. I 
realize the need now more than ever for this industry to work together 
and look forward to working with the Committee to craft this set of 
vital farm policy. Because it is an integral part of my operation, my 
testimony will focus on multiple areas of farm policy as they relate to 
my safety net.
Protect Federal Crop Insurance
    My area experienced one of the driest periods of all time during 
last year's drought. Keeping up with feed requirements for my cattle 
and growing any crop at all were a struggle in 2011, but because I 
invest in crop insurance to protect my business investment, I am able 
to farm and ranch again in 2012. Crop insurance is by far the most 
important component of my safety net, and I ask that the Committee does 
not harm this essential program. I have some specific suggestions that 
I believe would enhance the Federal crop insurance program.

  <bullet> I would suggest reforms to APH methodology and a better 
        county T-yield system to reduce the impact of local weather 
        events and allow the producer's insurable yield (pre-
        deductible) to reflect what the producer and his lender would 
        actually reasonably expect to produce in that year. I believe a 
        personal T-yield system, which would allow a producer's APH to 
        more accurately reflect his yield potential, would be a 
        productive way to improve APH.

  <bullet> Forage sorghum is an important part of my operation, because 
        its high yield and low water use make it an ideal winter feed 
        crop for my livestock operation. A usable forage insurance 
        product would offer needed protection for diversified producers 
        like me.

  <bullet> In no case should the crop insurance tools, which are 
        purchased by the producer, be weighed down with environmental 
        compliance requirements or other conditions that fall out of 
        the scope of insurance.

  <bullet> I would encourage RMA to include all crops in any trend 
        yield program. It is unfair to allow certain counties and 
        certain crops to have this option.
2012 Farm Bill
    I understand the Committee has considered various policy options 
for title I. For both the health of my operation and my sensibility of 
Federal farm programs, I prefer to have a deep loss, price protection 
plan. Whether that protection is a reference price system or a revenue 
based system, it is important that it be in the farm bill safety net 
and producers have the option to choose what fits their operation and 
risk appetite the best. In a revenue based program, it is critical to 
have a reference price and plug yields. The reference price will 
protect against a large commodity price drop and plug yields will help 
in times of consecutive years of drought.
    It seems that without yield plugs, in a situation with 2 
consecutive years of loss, the protection quickly drops to a point 
where the program would have little value and would provide almost no 
protection for my farm. This component is necessary to ensure equity 
among regions because I grow in a region with such high yield 
variability.
    Additionally, a revenue policy in conjunction with the potential 
use of adjusted yields for certain commodities could eliminate the 
important element of risk involved in growing a crop. This would create 
a situation that would greatly distort planting intentions because a 
farmer may be inclined to plant for the largest revenue guarantee as 
opposed to the most prudent agronomic choice.
    No matter which form of policy the Committee pursues, special care 
must be taken to encourage crop diversity and rotation on the farm and 
avoid a monoculture system which rejects agronomics in favor of farm 
policy incentives. The environmental disaster of the Dust Bowl was 
influenced in part by continuous monoculture cropping, and Federal farm 
programs should not incentivize producers to repeat the mistakes of the 
past. Based on both experience and a producer's understanding of the 
program, I suggest the following:

  <bullet> A farm bill should not dictate or distort planting 
        decisions. Direct payments are excellent in that they are the 
        most flexible safety net available. SURE or similar whole farm 
        policies tend to discourage diversification, which could be 
        problematic for me and especially my geographic area. Any 
        commodity-specific program that is tied to planted acres must 
        be very carefully designed to avoid creating payment scenarios 
        that incentivize farmers to plant crops with higher inherent 
        value to maximize payments rather than making the wisest 
        possible agronomic decisions.

  <bullet> A program should be simple and bankable. The recently 
        expired SURE program had too many factors and was not tailored 
        to the many business risks producers face--it was not simple. 
        The current ACRE, while offering improved price-based 
        protection, is based on the state's income, not mine, so I 
        could suffer a total loss and not trigger a payment if the rest 
        of my state had no such misfortune--it is not bankable, 
        especially in a largely diverse state like Colorado. The 
        current loan and counter cyclical programs are simple and 
        bankable. Unfortunately, the 2008 price levels are no longer 
        relevant given current production costs. It is important to me 
        to have a simple, bankable program to take to my lender should 
        disaster strike my crop.

  <bullet> A farm bill should be targeted and defensible. It makes 
        sense to provide assistance when factors beyond the producers' 
        control create losses.

  <bullet> A farm bill should be built to withstand a multi-year low 
        price scenario. Whether in a price-based countercyclical plan 
        or a revenue loss plan, it will be important to have a set 
        minimum price that serves as a floor or reference price to 
        protect producer income in a relevant way in the event of a 
        series of low price years. Ideally, this minimum could move 
        upward over time should production costs also increase.

    Finally, direct payments, while not necessarily tied to a specific 
crop being planted, have proven to be a WTO compliant, efficient 
payment for producers. It is one of the few parts of the current safety 
net that give bankers certainty and will provide financing for our 
producers. However, if the Committee decides to move away from this 
program, it makes it that much more important that successor policies 
be bankable.
Eliminate Dated Pay Limits
    Given the likely possibility that a new farm program would have 
less certainty for the producer (a likely decrease or elimination of 
direct payments) and will therefore be designed to provide assistance 
only in loss situations, the program should not be limited based on 
arbitrary dollar limits, i.e., assistance should be tailored to the 
size of loss. A producer should not be precluded from participating in 
a farm program because of past income experience. In my area, farms are 
large, both because it takes a lot of acres to produce a marketable 
crop or to support each head of cattle and because the rugged nature of 
farming and ranching here has driven many producers to so called 
greener pastures since the Dirty 30s. As such, any internal program 
limits on assistance should be percentage-based (i.e., 25 percent of an 
expected crop value) and not discriminate based on the size of farm.
Build Incentives into Conservation and Energy Titles
    I am personally passionate about conservation, and a variety of 
farm bill conservation programs have allowed me to enhance 
environmental improvement activities on my farm and ranch. I use EQIP, 
CSP and CRP in various ways. All three have shown demonstrable results 
over the life of the last farm bill. The value of these programs cannot 
be overstated in a sensitive area like mine, and I urge the Committee 
to maintain and strengthen conservation activities wherever possible.
    For my part, I believe it would be beneficial to strengthen the 
principles of water conservation language in the Ag Water Enhancement 
Program (AWEP) of the 2008 Farm Bill to more specifically encourage 
planting water saving crops and enhancing water quantity. Currently, 
the program allows incentives for switching to lower water intensity 
crops, but a vast majority of payments are going to other projects. 
There is also a place for water conservation language in existing 
Conservation Security Program (CSP) and Environmental Quality Incentive 
Program (EQIP) language, and water conservation options should be 
strengthened wherever practical. Using farm bill conservation programs 
as a transitional support, farmers will be able to economically justify 
switching higher value crops to lower water intensity crops over time. 
In my area and across the Southwest, producers' near-term conservation 
initiatives will help preserve and repair the Ogallala Aquifer that 
this area relies upon.
    Additionally, I support the continuation of a farm bill energy 
title and specifically encourage continuing the Bioenergy Program for 
Advanced Biofuels from Section 9005 of the 2008 Farm Bill. It has 
enhanced markets in my area and I'm proud that farmers are contributing 
to our national security by lessening oil from the Middle East.
Livestock in My Operation
    Throughout the High Plains, most of the people I know have 
livestock. The recent drought generated a tremendous feed demand, and 
the dollars needed to offset the drought increased with it. Even so, 
herd dispersement was rampant. Livestock producers have benefitted 
greatly from the 2008 Farm Bill, especially during the drought. 
Livestock plays a pivotal role in my operation, and we cannot forget 
about the livestock producer in the next farm bill.
    In conclusion, I know the Committee faces a difficult task in 
balancing geographic and commodity differences. It is hard to make a 
one-size-fits-all package, so I would just like to reiterate the most 
important things to me are long term, deep loss price protection, a 
solid insurance program and the ability for each producer to choose 
among policies.

    The Chairman. Thank you, Mr. Swanson.
    I now recognize myself for 5 minutes for questions and 
would note to my colleagues, with the kind of bright and 
insightful panels we have on both this and the next panel, 
we'll have some definite flexibility in the amount of time 
we're using.
    Mr. Vaughan, you're probably aware that a letter from a few 
of our national commodity groups was sent to the United States 
Senate yesterday. Are you a member of any of those groups?
    Mr. Vaughan. Yes, sir, I am.
    The Chairman. Not to put you on the spot, but just simply 
asking. The letter suggests that corn growers oppose any form 
of price protection. As a corn grower, do you agree with that 
perspective?
    Mr. Vaughan. No. I'm a former President of that 
organization and I'm a member of the Soybean Association and a 
Farm Bureau member and a member of the Wheat Growers, and I do 
not agree with that statement that was made in there, that they 
do not support a price-based protective system, and that's what 
we need. That's what we need out here in this country, if we 
have multi-year losses like we had in 1997 through 2005.
    The Chairman. They seem to say, or imply, and it says the 
phrase that it would distort planting decisions and that a 
shallow loss revenue plan based on the last 5 years of revenue 
will not. Any concerns with that statement?
    Mr. Vaughan. Yes, I do. Isn't it true that basically the 
farm bill distorts planting in and of itself? I mean, what is 
the purpose of the farm bill? It's to keep farmers producing so 
that we don't have a situation where we create a huge surplus 
and then prices go to the bottom and we just--farmers can't get 
money to plant and so they just have to stop for a year. How 
would that system work?
    I mean, it takes a year. We're not like an auto plant where 
we can shut down for 3 or 4 weeks and let supply and demand 
come back into balance. It takes a year to grow a crop, and so 
we have to keep producing. We need price protection that 
enables us to--for lenders to keep lending, rural America to 
keep working, and farmers to keep farming.
    So with that said, I would say all policies distort 
plantings to a certain extent; even crop insurance, the way 
it's structured. I mean, we have to set a stake in the ground 
and say, okay, this is the crop price, the guaranteed crop 
price for the year for crop insurance, but what if it changes 
three or four more times during the year? Obviously, those 
planting--what that planting guarantee is for crop insurance 
has an influence on prices, or on crop plantings; so even if 
crop insurance has distorted the plantings to some extent, the 
idea that revenue doesn't, I can't buy into that, because a 
farmer--if prices are low for all commodities, which they 
generally are all at the same time, and a farmer goes in and he 
looks at it and he says, okay, I grew corn and soybeans. I'm 
going to look at my revenue guarantee under my revenue plan, 
I'm going to look at my crop insurance guarantee, and I'm going 
to plant corn if it's the best one for under that system, or 
I'll plant soybeans if it's the best, and so even that revenue 
plan, that's where I disagree. When they say that the revenue 
plan is not going to distort plantings to any extent at all, 
that's--I think that's totally false.
    The Chairman. Fair statement. Scott, why don't crop 
insurance and these revenue programs provide the price 
protection you need, from your perspective?
    Mr. Neufeld. Well, from my perspective, obviously, we set a 
base price in crop insurance usually in the fall months for us 
wheat producers, and then there's a harvest price set during 
the month of harvest, usually in the month of June, and you get 
the greater of those two. If per chance we get into those years 
of multi-year low prices and we have $3\1/2\, $4\1/2\ prices 
that are set for those target prices and base prices during 
those times, and you multiply that by your yield, your revenue 
guarantee is well below your break-even, and I just--the crop 
insurance, the way the crop insurance prices are set, if we get 
into years at multi-low prices, the revenue guarantees don't 
guarantee us a break-even anymore, where this year, it's just 
the opposite, actually.
    With this year, we had some great prices set during the 
fall and we have good, good revenue guarantees, but if we get--
and our guarantees are well above our break-evens now, or 
they're going to provide us a profit, anyway.
    The Chairman. You rightly point out that there are a great 
number of people out there who are misinformed, in your 
testimony, about the importance of direct payments. Can you 
give us an appreciation for the relevance of the direct 
payments in your operation, the direct payments that have been 
the foundation of the safety net of the last three farm bills?
    Mr. Neufeld. Direct payments in my operation have amounted 
to anywhere between an $8 to an $11 per acre type of a payment. 
What can that do for us? What has it done for me on my farm? 
It's allowed me to replace equipment that needed to be 
replaced. It allowed me to buy some crop insurance, possibly 
buy up-coverage on crop insurance, and I think one thing that 
we don't see in direct payments are all the dollars that are 
pumped into these rural economies through direct payments are 
spent locally, so we don't often talk about the support that it 
has been to our rural economies, but those dollars, in essence, 
are rural economic development as well.
    The Chairman. And as my colleagues would indulge me, I'll 
continue, if you'd also expand. Now, there are some folks that 
if they have their way, they would limit, put a pay limit of 
$40,000 on the portion of your premium that the government 
shares. How would that impact your ability to insure your crop, 
obtain loans from the banker, and how would it affect young 
farmers who are just starting out?
    Mr. Neufeld. That's a good question. You know, the payment 
limits on crop insurance premiums probably would not directly 
affect my operation because I'm not large enough to get into 
those levels where that would. But, I know many family-owned 
corporations that it would affect their ability to buy the 
level of crop insurance that they would desire.
    A young producer just starting out, would it level the 
playing field for them? I'm not sure. It probably wouldn't, but 
it does--crop insurance does give us a bankable guarantee that 
when we go to the bank, we can say this is the amount of 
revenues that I'm going to get, regardless of the price or the 
yield it happens to make.
    The Chairman. And my farmers remind me, your neighbors, our 
fellow neighbors in Oklahoma, that all those records have to be 
in that loan portfolio file; that it's not just the banker that 
wants it. It's the examiners who demand the bankers have that 
in the file, so it's critically important.
    Mr. Swanson, you talk about the importance of farm policy 
not influencing a producer's planting decisions.
    Given what you know about the effort last fall, in your 
judgment, would that policy have influenced your planting 
decisions if the farm bill had become a--the effort in the 
Super Committee become the farm bill?
    Mr. Swanson. Well, I have to yield to what Mr. Vaughan 
said. I think all things influence planting decisions, and it 
probably absolutely would. However, if we have--for instance, 
if we had price--price protection and it was equitable across 
the board, that should not influence your decision, just 
because of that price protection; and so those things that were 
put forth, I think were influenced--it influenced it, but it 
influenced it probably a minimal amount.
    The Chairman. I guess to go straight to the point, the 
reference prices discussed in the 2000 Farm Bill effort, would 
that have addressed your concern about the need for price 
protection in periods of low prices?
    Mr. Swanson. Yes, sir.
    The Chairman. Thank you. Mr. Miller, kind of a 
philosophical question. You mention that you've grown your 
operation, in your testimony, from 400 acres that your father 
farmed to 7,500 now. When you listen to the national dialogue, 
are you led to believe that large farms are bad and the idea of 
the ideal farm is small, the family-owned farm?
    Can you explain why you chose--that's what--if you listen 
to the national dialogue, that's what you believe, based on 
what you hear. Can you explain your choice to expand and could 
you sustain your family today on that 400 acres your father 
farmed in 1976? I know it's almost a simple, a silly question 
to ask, but it's relevant for the record.
    Mr. Miller. No, there's no way that we could survive on the 
400 acres my father had when we started. The reason I grow my 
farm is we pool assets; we pool machinery; we pool capital; we 
pool buying power for buying large volumes of seed, fertilizer, 
and everything else; and it's made the operation of our farm a 
lot cheaper per acre.
    My farm actually includes two other operators with me, my 
nephew and my daughter and husband, and they absolutely could 
not start without me helping them, and by pooling everything 
together, we have the opportunity to do so.
    The Chairman. Absolutely. My time has expired and I 
appreciate the indulgence of my colleagues. I now turn to the 
gentleman from Texas, the Chairman of the General Farm 
Commodities and Risk Management Subcommittee, and a fellow who 
may have even fewer trees than you have or I have at home. Mr. 
Conaway.
    Mr. Conaway. Well, I do represent a Committee called 
``Notrees''. The first guy on the Committee, the Chairman, put 
me on the Forestry Subcommittee. We went to the city limits of 
Notrees, Texas. I had my picture taken by the city limit sign 
and gave it to the Chairman and said, I'm probably not the 
right guy to deal with forestry concerns.
    Thank you, Mr. Chairman. I am reminded, though, that 
sharing questions with the Chairman is like sharing a hamburger 
with a lion. I learned everything I know from Pat Roberts. I'm 
his son.
    The Chairman. I was back then, too.
    Mr. Conaway. I would like to just--I think Mr. Miller and 
Mr. Harshberger may have mentioned it as well--turn to crop 
insurance, the differentials or the differences between 
irrigated practices and dryland farming and how that would work 
if you were somehow to bifurcate insurance units into separate. 
Can you kind of walk me through how you envisioned that would 
work?
    Mr. Miller. Well, what I'm concerned about is the--right 
now, it's either dryland or it's irrigated, and if we would put 
it by the enterprise units, we could have either separate 
enterprises that have both the irrigated and dryland and that 
would be----
    Mr. Conaway. Separate?
    Mr. Miller. Well, yes. We need to do something to be able 
to differentiate, because our irrigation yields for corn in our 
area are in the 140 to 170 range, and dryland is in the 50 to 
60, and you can't commingle them and it's a real mess for us, 
so somehow we need to address that issue.
    The limited irrigation is also a real major issue with that 
because, like last year, everybody told us we ought to shut our 
wells down because everything was a total disaster, but the 
crop insurance, where we had them insured for definitely for 
irrigation, they said we had to keep running them, and that was 
just water getting wasted, because the crop was already done.
    Mr. Conaway. The GAO report on--it's still serving by the 
folks who asked for the report. Can you guys, each of you, walk 
us through how the impact of the $40,000 limit and--or tie in 
conservation practices that you wouldn't otherwise have been 
doing to get that, how do you see that being implemented and 
impacting your operation? Anybody? Just start with Dee, anybody 
with comments.
    Mr. Vaughan. When that came out about a week ago, we did a 
little analysis and what we discovered is that if a guy in 
Texas, the Panhandle there, is buying 65 percent coverage, he's 
basically getting about $40 per acre in subsidy; so in fact, 
what it would do is limit it to about a thousand-acre farm. You 
could go to your banker, and there are not many thousand-acre 
farms in our area. In our area, they just don't work. You have 
to be larger to get efficiency of scale.
    So what you have is a situation where you'd either have to 
go to your banker and say, well, I'm sorry, but I can insure a 
thousand acres and everything after that was on its own, or 
take a lower coverage. Maybe you could go to 5,100, but then 
you have to go back to your banker as well and say, I'm 
insuring my crop for less than what I did last year, so it's 
going to have a tremendous impact. I mean, if that policy was 
enacted, it would be a terrible policy.
    As far as conservation compliance, I exceed what is in my 
conservation plan anyway. I'm strictly a strip till and no-till 
farmer. That's not in my conservation plan. It goes above and 
beyond what I have to do, and as mentioned, our land is what we 
do. It's our biggest asset. Why would we jeopardize it by 
misusing it or abusing it?
    Mr. Conaway. Sure. Scott?
    Mr. Neufeld. As I read that GAO report, it was going 
through my mind, something that I could equate this to that we 
could get our heads around, and as I thought about it, natural 
disasters hitting different communities in this country. In 
essence, putting those limits on would be like saying that 
we're going to give a FEMA disaster declaration and assistance 
to Chicago the same as we are going to give to Minneola, 
Kansas. Things are to scale in this country and our ag 
production entities are that same way, and it's just like I 
said, if we are going to limit farm size to 1,000 acres, that's 
going to dictate what kind of risk you're going to be able to 
take.
    Mr. Swanson. I think we're getting into that philosophical 
area real, real quick and deep in the weeds, but when we help 
other things and other industries in this country, let's say 
we're going to build a wind farm, we don't tell the wind farm 
people that we're going to help you build the first eight 
windmills and then you're going to have to build the other 27 
on your own. We help them build all of them.
    We don't help the airlines with a few, if we decided that 
the airline industry needs to be a mom and pop type operation 
and we're not going to let you have but a few airplanes. We 
think you can serve with that, and so why do we not treat 
agriculture as a business like we do other things, and the--
we're required to do that when we get financing. We're required 
to do that.
    Our country encourages growth, encourages progress, and it 
seems to me like--and pardon me if I'm getting a little bit 
sensitive here. Seems to me like the ag community is the only 
one that's looked on disparagingly when we grow, and we have 
some problems with that.
    Mr. Conaway. Thank you, Mr. Chairman.
    The Chairman. The chair now recognizes the gentleman from 
Kansas for 5 minutes, Mr. Huelskamp.
    Mr. Huelskamp. Thank you, Mr. Chairman, and the first 
question would be for Mr. Harshberger. I had invited someone 
from the EPA to come here and listen, and it's my understanding 
out of the thousands of folks that work there, no one had time 
to come and listen, but if they were here, what would you tell 
them about your desire to protect the environment on your 
family farm?
    Mr. Harshberger. It was mentioned by Mr. Swanson. It's 
about the dirt, and I've always stated that farmers are active 
environmentalists. Our livelihood depends upon the health of 
that dirt, so we are the world's conservationist. Now, there 
are some things that we can help with like, for instance, with 
the water in eastern Kansas, we have an issue of sedimentation 
in our reservoirs, and so with the funds like EQIP and AWEP, 
we're able to enhance the streambeds to avoid that 
sedimentation, so there are things that we're already doing. 
We're already in tune with what we need for our farms, for our 
dirt. There are some things that we can have assistance on to 
take us to the next step forward, but I think we are the first 
active environmentalists.
    Mr. Huelskamp. Thank you. Mr. Miller, a question. You 
mentioned exports and I have a broad background in that. Can 
you describe for the Committee and the folks here what our 
foreign competitors do that make it difficult for us to compete 
internationally?
    Mr. Miller. Yes. Our foreign competitors, for one thing, 
all have animal ID and it's mandatory, and that particular 
issue is causing us a lot of grief overseas. If you notice, 
China just recently decided to take exports from Canada and 
we're still not in there, and the only reason they did so is 
because they had mandatory ID in Canada. That's becoming a 
major issue for our country doing business overseas. A lot of 
your businesses in Japan, Korea, and places like that actually 
have TV monitors set up and you can scan a bar code on a 
product and actually see where the product came from. The 
consumer is driving it over there and it's an issue that we 
don't--that we haven't been able to address here in the U.S. 
The pork side does have mandatory ID, but the beef side 
doesn't, so that's an issue we're going to have to tackle 
somehow through either incentive, through voluntary or some 
other method, but exports are booming overseas and the demand's 
there.
    The reports say that we have to double production by the 
year 2050 in order to be able to feed all the people that are 
going to be in the world, and we're in the prime area to 
produce a lot of product and ship it overseas and make a 
profit, but we have to make sure that we have the right safety 
nets here now so that we all can stay in business and be able 
to produce that food instead of ship it in from overseas.
    Mr. Huelskamp. Thank you. Mr. Swanson, what are your 
thoughts on conservation programs, the number of programs that 
we have? There have been proposals to consolidate those, 
consolidate applications. You're in an area, the epicenter of 
the Dust Bowl. I wonder if you could talk a little bit about 
that.
    Mr. Swanson. Well, I'm all for improving bureaucratic 
efficiency, and if that's--can you say those two words in the 
same sentence? I'm not sure. But at the same time, we do know 
that in order to administer something, we have to have a 
bureaucracy to do it, and so if those consolidations make the 
product that the farmer needs, the producer needs, the rancher 
needs a better product, and makes it easier to access and to 
implement, I'm all for it. If it saves us money in the process, 
I'm all for it, but I think that we really do need to 
strengthen our relationship with the local soil conservation 
district boards. They know what's going on; they know what will 
work in their area; they know what those things are; and those 
bureaucracies need to listen to them, and so I guess that's not 
a very good answer to a very good question.
    Mr. Huelskamp. Mr. Vaughan, I have time for one more 
question. Just curious. Talk about your cost of production. 
Would you say generally what it is today or what it was 
compared to, say, 5 years ago for, say, corn?
    Mr. Vaughan. It's been up and down like a roller coaster 
over the last few years. In 2008, it peaked. It was 
approximately about $4\1/2\ a bushel growing a bushel of corn 
that year, because of high natural gas costs. We irrigate, we 
use natural gas, and it was a back-breaker that year, with 
fertilizer costs.
    Mr. Huelskamp. What was your average sale price that year?
    Mr. Vaughan. Approximately around--we had forward 
contracted a lot of product earlier and sold it for in the 
$4\1/2\-$5 range, so it was basically a break-even year, even 
though USDA reported record farm income that year. I talked to 
a lot of producers that were in the same boat. It's back down 
now because of energy cost.
    Natural gas, of course, is much cheaper than it was in 
2008, so it's--we're back down considerably.
    Mr. Huelskamp. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you, and I'd like to once again 
acknowledge the outstanding insights that the first panel 
provided to us today and dismiss you gentlemen. Thank you for 
your participation and we'll now call the second panel of 
witnesses to the table.
    As they're coming up and the name tags are being placed, 
we'll have on our second panel Mr. Frank Harper, a corn, 
soybean, wheat, sorghum and cow/calf producer from Sedgewick, 
Kansas. We'll have Mr. Kendall Hodgson, wheat, soybean, corn, 
sorghum, alfalfa and cow/calf producer from Little River, 
Kansas; Mr. Tom Giessel, a wheat, corn, sorghum, soybean, 
alfalfa, and cow/calf producer from Larned, Kansas; Mr. Woody 
Anderson, a cotton and wheat producer from Colorado City, 
Texas; and Mr. Zach Hunnicutt, a corn, soybean, and popcorn 
producer from Aurora, Nebraska.
    One thing about it, when you have a hearing in our part of 
the world, you have a diversity of production. That's 
wonderful, and whenever you're ready, Mr. Harper, you may 
begin.

 STATEMENT OF FRANK HARPER, CORN, SOYBEAN, WHEAT, SORGHUM, AND 
                COW/CALF PRODUCER, SEDGEWICK, KS

    Mr. Harper. Well, thank you, Mr. Chairman, Mr. Huelskamp, 
and Mr. Conaway. My name is Frank Harper and I thank you for 
the opportunity to be here today. My wife and I, Mary, we have 
a cow/calf backgrounding and farming operation near Sedgewick, 
Kansas. Our cattle operation consists of both registered 
commercial cows, and we typically background our calves and 
then retain ownership through the feeding phase. Our farming 
operation consists of wheat, grain sorghum, corn, soybean, and 
includes both dryland and irrigated production. I currently 
serve as President of the Kansas Livestock Association and 
serve on the Board of Directors of the National Cattleman's 
Beef Association, of which KLA is an affiliate.
    The beef industry is a key segment of the Kansas economy, 
and the Kansas beef industry is a major piece of the U.S. beef 
industry. Kansas ranks third nationally with 6.1 million cattle 
on ranches and in the feedyards. Those cattle generated $6.53 
billion in cash receipts in 2010.
    Development of the next farm bill is an important process 
for livestock producers. The vast majority of my fellow 
livestock producers believe the livestock industry is best 
served by the process of free enterprise and free trade. Even 
with its imperfections, free trade is more equitable than 
regulated and subsidized markets, which often distort 
production and market signals. We oppose attempts to narrow the 
business options or limit the individual freedom of livestock 
producers to innovate in the management and marketing of their 
production.
    I oppose the inclusion of the livestock title in the next 
farm bill. The livestock title in the last farm bill attracted 
proposals like the GIPSA rule, mandatory country-of-origin 
labeling, and other items that are counter to the free 
enterprise system that I support.
    Items with industry-wide support can be included in the 
miscellaneous title, just as they have been in every farm bill 
prior to the 2008 bill.
    I strongly oppose, as do the vast majority of Kansas cattle 
producers, the proposed regulation issued by the Grain 
Inspection, Packers and Stockyards Administration on June 22, 
2010. In short, U.S. producers are concerned that the GIPSA 
rule would greatly expand the role of government in marketing 
livestock and eliminate producers' ability to market livestock 
to capture the benefits of their efforts to improve the quality 
of their livestock.
    Over the years, I've invested in genetics that have helped 
me improve the quality and consistency of the calves I produce. 
To capitalize on this investment, I retain ownership of my 
calves and feed them in a commercial feedyard. This allows me 
to market my calves through programs like U.S. Premium Beef, 
Certified Angus Beef, and other programs that allow me to earn 
premiums for the high quality cattle.
    The GIPSA rule would require purchases of my cattle to 
justify paying more than the, ``standard price'' for my 
livestock. If my competitors don't agree with the justification 
the packer offers by paying me for my--more than the standard 
price for my livestock, the packer could be sued. Common 
business sense tells me it wouldn't be long before the packer 
no longer would be interested in our agreement. This means I'll 
be back to selling cattle at a price based on averages, instead 
of actual value. My investment in superior genetics could be 
lost or severely compromised.
    The rule goes far beyond the intent of Congress. Members of 
this Committee will recall several of the proposals contained 
in this rule were either defeated or withdrawn during 
consideration of the last farm bill. We strongly urge you to 
take action to prevent the implementation of this rule.
    Country-of-origin labeling continues to be an area of 
concern for us. Last year, the World Trade Organization ruled 
in favor of Canada and Mexico in their complaint against the 
U.S. mandatory COOL program, and it is in the interest of the 
U.S. beef industry to resolve this dispute before retaliatory 
action is taken. Organizations like KLA and NCBA strongly 
encourage the inclusion of language in the next farm bill to 
address the WTO finding.
    For additional questions, I would refer you to my written 
comments. Again, thank you for the opportunity to be here and 
I'll entertain any questions at the appropriate time. Thanks.
    [The prepared statement of Mr. Harper follows:]

Prepared Statement of Frank Harper, Corn, Soybean, Wheat, Sorghum, and 
                    Cow/Calf Producer, Sedgewick, KS
    Mister Chairman and Members of the Committee, my name is Frank 
Harper. My wife Mary and I have a cow/calf, backgrounding and farming 
operation near Sedgwick, Kansas. Our cattle operation consists of both 
registered and commercial cows. We typically background our calves then 
retain ownership through the feeding phase. Our farming operation 
consists of wheat, grain sorghum, soybeans and corn and includes 
dryland and irrigated production. I am President of the Kansas 
Livestock Association (KLA) and serve on the Board of Directors of the 
National Cattlemen's Beef Association (NCBA), of which KLA is an 
affiliate. I am very pleased to be with you today.
    The beef industry is a key segment of the Kansas economy and the 
Kansas beef industry is a major piece of the U.S. beef industry. Kansas 
ranks third nationally with 6.1 million cattle on ranches and in 
feedyards. Those cattle generated $6.53 billion in cash receipts in 
2010. Kansas is a national leader in cattle feeding and beef 
processing. The Kansas beef cow herd is the seventh largest in the 
country at 1.43 million head. Also, the presence of Kansas State 
University, the Animal Health Corridor and the proposed National Bio 
and Agro-Defense Facility makes Kansas a world leader in animal health 
research.
    Development of the next farm bill is an important process for 
livestock producers. Whether directly or indirectly, the provisions 
included in the farm bill can have a dramatic impact on livestock 
producers' businesses. I oppose agriculture policies that pit one 
industry group against another, distort market signals and 
inadvertently cause economic harm to the livestock sector.
    The vast majority of my fellow livestock producers believe the 
livestock industry is best served by the process of free enterprise and 
free trade. Even with its imperfections, free trade is relatively more 
equitable than regulated and subsidized markets which retard innovation 
and distort production and market signals. We oppose attempts to narrow 
the business options or limit the individual freedom of livestock 
producers to innovate in the management and marketing of their 
production.
    I oppose inclusion of a ``Livestock Title'' in the next farm bill. 
The livestock title in the last farm bill attracted proposals like the 
GIPSA rule, mandatory country-of-origin labeling and other items 
counter to the free enterprise system I support.
    Items with industry-wide support can be included in the 
``Miscellaneous Title'', just as they have been in every farm bill 
prior to the 2008 bill. I ask for the support of Members of this 
Committee in opposing a livestock title in the next farm bill.
GIPSA Proposed Rule on Livestock Marketing
    I strongly oppose, as do the vast majority of Kansas cattle 
producers, the proposed regulation issued by the Grain Inspection, 
Packers and Stockyards Administration (GIPSA) on June 22, 2010. I would 
refer you to comments filed by KLA and NCBA which may be found at 
http://www.kla.org/proposedgipsarule.aspx. Although USDA has not 
advanced the most egregious portions of the regulation for final 
rulemaking, the threat remains, especially after the current 
appropriations restriction expires in September.
    Beef producers throughout Kansas and the United States are 
concerned the proposed regulation would greatly expand the role of 
government in marketing livestock and eliminate producers' rights and 
ability to market livestock to capture the benefits of their efforts to 
improve the quality of their livestock.
    As outlined in both sets of comments, the regulation outlines new 
definitions to be used to interpret the Packers and Stockyards Act that 
would expand the jurisdiction of USDA over all marketing arrangements. 
USDA would require the reporting of marketing arrangements and then 
would post them on the USDA website. Producers participating in 
marketing arrangements would have limited ability to protect their 
private information from public disclosure.
    The proposed regulation has broad application and may include 
existing contractual arrangements if the agreement between the buyer 
and the seller were modified by the parties. The proposal also would 
require buyers to justify any discount or premium paid. USDA then would 
review these transactions and make determinations of violations based 
upon its judgment, not marketplace economics.
    The proposal includes new definitions of ``competitive injury'' and 
``likelihood of competitive injury'' and new listings of circumstances 
that may be considered ``unfair, unjustly discriminatory and deceptive 
practices or devices.'' Both sets are so broad that mere accusations, 
without economic proof, would suffice for USDA or an individual to 
bring a lawsuit against a buyer.
    The proposal's new listings of criteria that USDA would use to 
determine whether an undue or unreasonable preference or advantage was 
made by a buyer include requiring the buyer to make similar offers to 
all livestock producers; requiring the buyer to make price premium 
offers in a manner that does not discriminate against any other seller; 
and requiring the buyer to make offers known to all sellers if such 
offer is made to one or more seller.
    We believe these provisions would negatively impact producers and 
consumers in the following ways.
    Lost Opportunities and Lost Profits: Cattle producers are concerned 
this regulatory proposal, coupled with the risk of litigation from USDA 
and citizen suits, likely would cause buyers to withdraw marketing 
arrangements rather than run the risk of litigation, civil penalties 
and potential revocation of licenses.
    If marketing arrangements were restricted, producers and consumers 
would be the losers. The proposed regulation would restrict cattle 
producers' freedom to market their cattle as they see fit. It would 
limit their opportunity to capture more of the value of their cattle 
and eliminate important risk management tools. Regulating marketing 
agreements would impact nearly 65% of the fed cattle market.
    The proposed regulations ultimately may remove products consumers 
prefer. Producers have responded to consumer demand by finding 
innovative ways to develop and market premium quality and branded 
products. These alternative marketing arrangements have allowed 
producers to get paid for the added value. These arrangements ensure a 
consistent supply of livestock and poultry that meet the requirements 
of such programs. Without this consistent supply, these programs cannot 
be sustained.
    The 2007 USDA GIPSA Livestock and Meat Marketing Study found 
reducing or eliminating the use of alternative marketing arrangements 
(AMAs) would negatively affect both producers and consumers. No segment 
of the beef industry, from the ranch to the consumer, would benefit 
from the reduction or elimination of these marketing arrangements. The 
GIPSA study results showed if AMAs were reduced 25%, the 10 year 
cumulative effect would be a loss of $5.141 billion for feeder cattle 
producers; a loss of $3.886 billion for fed cattle producers; and a 
loss of $2.539 billion for consumers. If marketing arrangements were 
eliminated, the 10 year cumulative losses for producers and consumers 
would be as follows: feeder cattle producers--$29.004 billion; fed 
cattle producers--$21.813 billion; and consumers--$13.657 billion. 
Combined losses across all segments would exceed $60 billion.
    Loss of Privacy/Risk of Litigation: The proposed regulation 
requires packers to file copies of marketing arrangements with USDA. 
Packers may assert some information is confidential and request that it 
not be released. However, producers who are parties to the marketing 
arrangements would not have the same opportunity to claim privacy. This 
means confidential producer information could be posted on USDA's web 
site for producer competitors to view. The regulation would lessen the 
burden for bringing an action against a packer. Packer livestock 
purchase records likely would be a part of any litigation. Producers 
participating in questioned transactions likely would be drawn into the 
litigation.
    Negative Restructuring of the Industry: I believe the potential 
elimination of marketing arrangements likely would encourage vertical 
integration. In order to satisfy consumer demand currently being met 
through the use of marketing arrangements, packers may choose to own 
livestock in larger numbers (today, packers directly own less than 5% 
of the market) rather than risk litigation.
    While the regulation is couched in many legal terms and arguments, 
it would have a real impact on producers like me. Over the years, I 
have invested in genetics that have helped me improve the quality and 
consistency of the calves I produce. To capitalize on this investment, 
I retain ownership on my calves and feed them in a commercial feedyard. 
This allows me to market my calves through U.S. Premium Beef and other 
programs that allow me to earn premiums for my high quality cattle.
    The proposed regulation would require purchasers of my cattle to 
justify paying more than a ``standard price'' for my livestock. What is 
a standard price and who sets it? The regulation seems to infer that to 
be the role of government. I strongly oppose the government setting 
``standard prices'' for my livestock. If my competitors (other 
producers) don't agree with the justification the packer offers for not 
paying me a ``standard price'', the packer may be sued. Common business 
sense tells me that it wouldn't be long before the packer no longer 
would be interested in our agreement. This means I'll be back to 
selling cattle for the same average price as everyone else. My 
investment in superior genetics would be lost.
    I believe the proposed rule will set the beef industry back to a 
time when all cattle received the same average price and beef demand 
was in a downward spiral. The rule also goes far beyond the intent of 
Congress. Members of this Committee will recall several of the 
proposals contained in this rule were either defeated or withdrawn 
during consideration of the last farm bill. We strongly urge you to 
take action to prevent the implementation of this rule.
    I believe the best course of action to protect U.S. beef producers 
is to delete the language which led to the proposed GIPSA rule. To that 
end, I support language striking Sec. 11006, Part 1 of the Food, 
Conservation and Energy Act of 2008.
Livestock Ownership Restrictions
    Another marketing related issue of concern is efforts to restrict 
packer ownership of livestock. I strongly oppose H.R. 4284 and its 
Senate companion, S. 2141. While the bills target packers, they could 
more accurately be described as restricting producers' choice of when 
to market their livestock. Study after study has shown packer ownership 
levels have no impact on market prices. In fact, the 2007 GIPSA study 
found limiting marketing opportunities in the beef industry would have 
significant negative effects for both producers and consumers.
    I ask Members of this Committee to reject any attempt to include 
language such as that contained in H.R. 4284 in the next farm bill.
Country-of-Origin Labeling
    The vast majority of beef producers have supported voluntary 
country-of-origin labeling (COOL) programs. These producers believe the 
market will provide the information and attributes consumers desire and 
are willing to pay to receive. The number of branded beef programs 
being utilized by beef producers is a testament to the signals provided 
by the market.
    Despite broad beef industry opposition, the current mandatory COOL 
program was included in the last farm bill. Producer groups like KLA 
and NCBA actively engaged in the development of the regulation in an 
attempt to limit the record-keeping burden for the industry. While we 
believe the requirements of mandatory COOL have been relatively benign 
for most producers, the same cannot be said for all beef industry 
participants.
    Last year, the World Trade Organization (WTO) ruled in favor of 
Canada and Mexico in their complaint against the U.S. mandatory COOL 
program. Although the U.S. Trade Representative has appealed the 
ruling, we believe the original decision is likely to stand.
    It is in the interests of the U.S. as a whole, and the U.S. beef 
industry in particular, to resolve this dispute before retaliatory 
action is taken. Canada and Mexico are among the largest trading 
partners for the U.S. In terms of exports, Canada and Mexico represent 
the number one and two destinations for U.S. beef products. In 2011, 
Canada and Mexico purchased more than $2 billion worth of U.S. beef and 
beef products, nearly 40 percent of our total beef export value.
    I strongly support the inclusion of language in the next farm bill 
to address the WTO finding. My preference would be language making the 
meat portion of the COOL program voluntary. An alternative approach 
would be to adopt the concept of substantial transformation wherein 
meat from any animal processed in the U.S. would be labeled as 
``Product of the U.S.''
Conservation Title
    Several conservation programs authorized in previous farm bills 
have played an important role in assisting farmers and ranchers enhance 
our nation's natural resources for food production, wildlife habitat, 
and water quality. In Kansas, the Environmental Quality Incentive 
Program (EQIP) is improving habitat for grassland-nesting birds under 
consideration for listing as threatened or endangered species, 
enhancing the health of grazing lands, improving water quality near 
lakes used for public drinking water, improving soil quality, 
conserving groundwater and reducing soil erosion. In Fiscal Year 2010, 
our state NRCS personnel completed over 900 contracts impacting over 
213,000 acres of our state's agricultural landscape. One important 
feature of EQIP has been its focus on livestock operations. I recommend 
a continued focus of 60% of EQIP funds toward livestock projects.
    My personal experience with EQIP has been very positive. EQIP 
helped enable me to make the transition to no-till farming. The cost-
share funds made it feasible for me to make the investment necessary to 
complete that transition. I know many similar stories where EQIP has 
facilitated operational changes that have positively impacted 
environmental quality.
    Farm and Ranchland Protection Program and Grassland Reserve Program 
(GRP) conservation easements are in strong demand by our state's 
agricultural landowners who desire to sell their development rights to 
protect their lands for future generations of farmers and ranchers. In 
many instances, selling a conservation easement has been a helpful tool 
for estate and succession planning as today's landowners prepare for 
the next generation of farmers and ranchers.
    Kansas leads the nation in the number of GRP agreements. To date 
this program has permanently protected over 36,000 acres of high-
quality native grasslands, through 66 GRP conservation easements in 
Kansas. We realize GRP does not have baseline funding for the next farm 
bill, but we encourage Congress to reauthorize this program and give it 
favorable consideration for its share of funding.
    I encourage Members of this Committee to remind your colleagues 
that Federal funds spent on conservation are a good investment in our 
country's natural resources and the ultimate beneficiary is the general 
public. In addition, conservation program spending is not an 
entitlement as participants are required to use these funds on the land 
and, in many instances, are required to invest their own time and 
personal funds as a match or cost-share contribution.
Conservation Easement Tax Incentive
    The Food, Conservation, and Energy Act of 2008 included a provision 
to extend the income tax incentive for qualified conservation gifts, 
including donated conservation easements. This extension expired 
December 31, 2011.
    I support making this incentive more permanent, as proposed in H.R. 
1964, the Conservation Easement Incentive Act of 2011. This bipartisan 
bill is sponsored by 302 Members of the House, including several 
Members of this Committee. I encourage this Committee to consider 
including similar language in the next farm bill.
Research
    My fellow cattle producers and I fully recognize the current 
economic situation facing the Federal Government and the need to reduce 
the Federal deficit. That said, I believe there are a number of 
programs worthy of continued funding in the farm bill. One area that 
plays a significant role in the livestock industry is the research 
title. Funding for livestock production research continually has 
declined since the 1970's. The beef industry does support increased 
funding for research on production practices, animal diseases, 
nutrition, food safety, and environmental impacts of the industry. Of 
these, the most critical programs administered by USDA are in the area 
of animal health.
    I would encourage the Committee to closely look at this title and 
identify ways we might be able to do more with less to ensure the 
health of our U.S. beef herd. Finding ways to increase investment 
opportunities, whether through public or private partnerships, will be 
vital to the security and viability of our agricultural industry and 
food supply. As we look to further expand international trade 
opportunities, animal health issues will become even more important 
with our international trading partners. It is imperative that we 
continue to invest in research on animal health issues to help U.S. 
producers remain competitive in the global marketplace.
    Related to animal health research is the proposed National Bio and 
Agro-Defense Facility (NBAF) currently planned for construction in 
Manhattan, Kansas. NBAF will house research on important foreign animal 
diseases now being conducted at the aging facility on Plum Island. This 
research is essential to protecting U.S. livestock from potentially 
devastating diseases such as foot-and-mouth disease. Research 
scientists are close to developing several important vaccines that 
would mitigate the impact and help contain a foreign animal disease 
outbreak. It is important that research continues.
    Due to the nature of the pathogens used in this research, the 
strictest and most modern bio-security and containment measures are 
necessary in this type of facility. Although the Plum Island facility 
has served its purpose well, it has reached its useful life. Given the 
importance of the research, it is imperative that development of a new 
facility move forward. We believe the Manhattan site is an appropriate 
location for the new facility given the proximity of the animal health 
corridor and the existing bio-security level 3 facility. We ask for the 
support of this Committee in moving forward with an appropriately 
designed and funded facility.
Government Mandates for Production Practices
    Cattle producers recognize and respect their obligation to provide 
for the well-being and care of their cattle. It is my responsibility to 
raise my cattle in a humane and compassionate manner and I take that 
responsibility seriously. I am concerned with legislation that has been 
introduced in the House (H.R. 3798) that would require the Federal 
Government to dictate production practices for food producing animals. 
Knowing the intent of this bill is focused on the laying hen industry, 
I still have serious concerns about the precedent of the Federal 
Government getting in the business of telling producers how to raise 
their animals, taking the decision away from farmers and ranchers and 
the animal health professionals and animal scientists with whom they 
consult. I am concerned the legislation will stifle the scientific 
research and industry innovation that ultimately benefits animals. 
Prescriptive production mandates are a clear disincentive to 
continually improve our industries based on the latest science.
    The World Organization for Animal Health (OIE) currently is 
developing international, species-specific standards for animal care. 
This process is guided by scientists and veterinary experts who have 
made the decision to move away from prescriptive housing requirements 
and instead have adopted outcome-based requirements. Current U.S. 
industry guidelines are science and outcome-based. We closely monitor 
each OIE guideline to ensure our industry standards remain consistent 
with any science-based OIE standards. I urge you and your colleagues to 
carefully evaluate the role of the Federal Government in determining 
animal production practices. I believe those decisions are best kept in 
the hands of the animal scientists, veterinarians, farmers and ranchers 
who care for these animals every day.
Animal Disease Traceability
    The beef industry long has been supportive of animal identification 
for animal health purposes. We strongly believe the goal of any program 
should be to enable the cattle industry, state and Federal animal 
health officials to respond rapidly and effectively to animal health 
emergencies. We do appreciate APHIS recognizing the shortcomings of the 
previously proposed NAIS and that it had become a barrier to achieving 
meaningful animal disease traceability in the U.S.
    The beef industry has advocated for a species specific and phased-
in approach. The proposed Animal Disease Traceability (ADT) program 
does this with Phase 1 only applying to cattle more than 18 months of 
age. We look forward to an objective, robust assessment of Phase 1 
before moving forward with inclusion of any cattle under 18 months in 
Phase 2. We are concerned as the proposed rule does not provide for a 
separate rulemaking process for Phase 2. We encourage APHIS to 
reevaluate how they plan to proceed for this age group and allow for a 
separate rulemaking. This group of cattle is much larger, more complex, 
and has increased logistical, technical and financial challenges for 
cattle producers and animal health officials.
    We also are concerned USDA's cost-benefit analysis may be flawed 
and not adequately represent the total cost to the cattle industry for 
Phase 1 and especially for Phase 2 of the program. The beef industry 
consulted with agricultural economists who indicate there is not enough 
information provided for a separate cost/benefit analysis. Therefore we 
requested more information in order to adequately evaluate APHIS' 
economic analysis of the ADT rule.
Proposed On-Farm Child Labor Regulations
    I am very concerned about the impact of recent proposed changes to 
on-farm child labor regulations. I applaud the Department of Labor's 
desire to enhance the safety of young people working on farms and 
ranches. A safe working environment is a primary concern of all farmers 
and ranchers. However, I am concerned the proposed regulations will 
stifle the ability of young people to work in agriculture.
    The list of prohibitions in the proposed rule is long and many are 
very vague or overly broad. Overly burdensome regulations often do more 
damage than good. I believe parents are better positioned to make 
decisions about the types of tasks assigned to young people on farms 
and ranches.
    We need more, not fewer, opportunities for young people to learn 
about agriculture and the potential for a career in agriculture. Not to 
mention the responsibility and work ethic developed when working with 
livestock or caring for crops. I appreciate the support shown by 
Chairman Lucas and several Members of this Committee in sponsoring H.R. 
4157, the Preserving America's Family Farms Act. I encourage every 
Member of this Committee to become a cosponsor of this bill.
Commodity Title
    Finally, I would like to comment on the commodity title. 
Historically, the cattle industry has hesitated from weighing in on 
prospective title I programs. Recent proposals, however, including 
those made during negotiations on the Super Committee proposal, cause 
some concern.
    Current commodity programs are relatively uniform, with each 
commodity crop participating in the direct payment, counter cyclical, 
marketing loan and crop insurance programs. Discussions that involve 
creating segmented commodity programs for individual crops pose a real 
threat to the livestock industry. Creating individual commodity 
programs increase the risk that farmers will fail to heed market 
signals and continue to grow crops in low demand and fail to increase 
production of crops in higher need.
    In the next farm bill, it is crucial that commodity programs not 
pick winners and losers. While the structure of commodity programs may 
change, cattle producers urge Members of this Committee to maintain 
uniformity of programs across all commodities.
Conclusion
    As you can see, the vast majority of cattle producers believe 
markets free from government interference best serve the beef industry. 
We prefer a farm bill that does not restrict our marketing options or 
distort market signals. We look forward to working with you as the next 
farm bill is developed.

    The Chairman. Thank you.
    Mr. Hodgson, you may begin when you're ready.

 STATEMENT OF KENDALL HODGSON, WHEAT, SOYBEAN, CORN, SORGHUM, 
                ALFALFA, AND COW/CALF PRODUCER,
                        LITTLE RIVER, KS

    Mr. Hodgson. Chairman Lucas, Representative Huelskamp, and 
Representative Conaway, thank you for coming here today. I 
appreciate your willingness to listen to what I and others 
would desire for a new farm bill.
    My name is Kendall Hodgson and I live in central Kansas, 
near the town of Little River. I'm a fourth generation farmer 
and rancher. My great-grandfather homesteaded on the banks of 
the Little Arkansas River across from an Indian camp in 1871. I 
farmed for 33 years, first in partnership with my father and 
now with my wife. We have two boys in high school and a 
daughter in grade school, and I think every day of what I need 
to do to make it possible for any of them to continue to farm 
if they would so choose.
    I operate a diversified farm, producing wheat, soybeans, 
grain sorghum, corn and alfalfa. I also operate a cow herd to 
give me something to do in the winter.
    We are here today to visit about what would be an 
appropriate safety net for farmers in this area. It is my 
belief that farms are less able to withstand a total crop lose 
without some form of income today than they were in the past. 
In today's business environment, we cannot afford to stumble.
    Our first priority should be a viable crop insurance 
program that covers not only a single year loss, such as last 
year's disastrous drought, but also multiple years of low 
production that caused declining APH's. Crop insurance may be 
our best tool, but it's not a perfect product. County T-yields 
are helpful, but sometimes they don't reflect what a producer 
and his lender would expect to produce in any given year.
    Direct payments have been very beneficial to the Great 
Plains, but seem to have fallen out of favor with many groups, 
and they're an easy target for budget cutters. A possible 
alternative to direct payments could be some type of revenue 
product that is triggered when price times yield are below some 
threshold. It might make some sense to use an area, such as a 
crop reporting district, to set these triggers. Farm level 
revenue is what we are actually most concerned about, but in 
reality, we have that with multi-peril crop insurance. Some 
form of area-wide program would be more budget friendly and 
give another layer of protection to production agriculture. The 
ACRE program seemed to have the right idea, but with a 
statewide trigger, really makes it unusable for the Great 
Plains area.
    In any of these programs, I would ask that the Committee be 
mindful of WTO compliance. We think of ourselves as a nation of 
laws, and we really have more to lose by noncompliance than we 
have to gain. The payments to Brazil is the one that comes to 
my mind. It really is a black eye for our farm programs that 
only invite criticism from our detractors.
    Conservation is something very near and dear to my 
operation. I realize I'm only on this Earth for a short time 
and I feel great responsibility to conserve those natural 
resources that I am privileged to manage, and I think this is a 
very appropriate rule for government to maintain the wealth of 
the nation in cooperation with those private operators.
    I know that the CRP part of the conservation has and will 
have a role in protecting fragile lands, but I can also see in 
some instances that better farming techniques can make better 
use of that land. I'm skipping through my testimony here.
    Conservation on working lands, in my opinion, is where the 
rubber should meet the road; again, in cooperation with the 
steward of the land, I think would have the most impact. Any 
system of production that leaks nutrients or soil out of it is 
not sustainable, and that, to my mind, is what conservation 
should be about.
    Basic research is not part of this title I that we're 
talking about today, but it is of utmost importance to 
agriculture. Agriculture is a great success story. Let's not 
forget to keep funding the kind of research that keeps private 
and corporate entities--that private or corporate entities 
cannot justify to enable producers to be even more efficient in 
the future.
    Another topic not in title I is trade promotion. These 
public and private shared funds have proven to be dollars well 
spent. Agricultural exports continue to be one of the shining 
stars in our balance of trade with other countries.
    In summation, I would ask the Committee to please maintain 
the flexibility of a program that would be proposed to allow 
individuals who have different needs to have some benefit. I 
remember what it was like before Freedom To Farm, and I don't 
want to go back. I thank the Committee for the time, and would 
be happy to answer any questions they may have.
    [The prepared statement of Mr. Hodgson follows:]

 Prepared Statement of Kendall Hodgson, Wheat, Soybean, Corn, Sorghum, 
            Alfalfa, and Cow/Calf Producer, Little River, KS
    Chairman Lucas, Ranking Member Peterson, and Members of the 
Committee I appreciate your willingness to come to Kansas today to hear 
what I and others would desire for a new farm bill.
    My name is Kendall Hodgson and I live in central Kansas near the 
town of Little River. I am a fourth generation farmer and rancher. My 
Great Grandfather homesteaded on the banks of the Little Arkansas River 
across from an Indian camp in 1871. I have farmed for 33 years, first 
as a partner with my Father and then as a sole proprietor with my wife 
when he was no longer able to get around. We have two boys in High 
School and a daughter in grade school and I think every day what I need 
to do to make it possible for any of them to continue to farm if they 
so chose.
    I operate a diversified farm, producing wheat, soybeans, grain 
sorghum, corn and alfalfa. I also operate a cow herd that gives me 
something to do in the winter.
    We are here today to visit about what would make an adequate safety 
net for farmers in this area. It is my belief that farms are less able 
to withstand a total crop loss without some income today than they were 
in the past. In today's business environment we cannot afford to 
stumble.
    Our first priority should be to maintain a viable Crop Insurance 
program that covers not only single year losses such as last year's 
disastrous drought but also multiple years of low production which will 
cause declining APH's (average production history's). Crop Insurance in 
one of the best tools we have to keep us whole in the bad years as well 
as helping us market our crops prior to harvest with more confidence 
when it makes sense to do so. Crop insurance may be our best tool but 
it is not a perfect product. Any crop insurance product needs to have 
plugs to fill the multiple years of low yields that can and will occur 
in this part of the country. One suggestion I have heard is to have 
better methodology to the formation of APH's. County T-yields are 
helpful but sometimes don't reflect what a producer and his lender 
would expect to produce in any given year. The closer to the individual 
farm those expectations can be formulated the better.
    Direct Payments have been very beneficial to the Great Plains area 
but seem to have fallen out of favor with many groups and are an easy 
target for budget cutters. A possible alternative to Direct Payments 
could be some type of revenue product that is triggered when price 
times yield are below some threshold. It might make sense to use some 
area such as a crop reporting district to set these triggers. Farm 
level revenue is what we are most concerned about but in reality if we 
have that with multi peril crop insurance. Some form of area wide 
revenue program would be more budget friendly and would give another 
layer of protection to production agriculture. The ACRE program seems 
to have the right idea but by having a statewide trigger makes it 
unusable for the Great Plains area. I like to point out that there is 
more variability in environment from the western border of Kansas to 
the eastern border of Kansas that there is from the eastern border of 
Kansas to the East Coast.
    In any of these programs I would ask the Committee to be mindful of 
WTO compliance. We like to think of ourselves as a nation that follows 
the law. We stand to lose more by noncompliance than to gain. I 
understand the realities of the Brazilian threat of a WTO suit 
concerning our cotton program and our subsequent payments to Brazil to 
keep that suit from happening but this is something of a black eye for 
our farm programs that only invite criticism from our detractors.
    Conservation is something that is near and dear to my operation. I 
realize that I am on this Earth only a short time and I feel a great 
responsibility to conserve the natural recourses I that am privileged 
to manage. This is a very appropriate role for government to maintain 
the wealth of the nation in cooperation with the private operators on 
the land.
    I know that CRP has and will have a role in protecting fragile 
lands but I also can see that with better farming techniques we can 
make better use of some of that land. 21 years ago I spent a month in 
India and to see how they scrambled for every bit of land to grow 
something on was quite a contrast to our government paying us to not 
produce. I fully realize that we are not India nor would I want us to 
be but I can see the need in the future to put lands where appropriate 
back into production.
    Conservation on working lands in cooperation with the steward of 
the land would have the most impact of any conservation program. 
Preserving our natural resources by not only keeping the soil on the 
land where it ought to be, but by preventing excess nutrients and crop 
production chemicals from going down the river is our ultimate goal. A 
system of production that leaks either soil or nutrients out of it is 
not sustainable.
    Basic research may not be part of the title I portion of the farm 
bill that we are discussing here today but I would be remiss if I did 
not remind the Committee that modern agriculture is a great success 
story. We produce far more with fewer resources that at any time in 
history. We didn't get here by accident. Let us not forget to keep 
funding the kind of research that private or corporate entities can't 
justify that will enable producers to be even more efficient in the 
future.
    Another topic that may not be in title I is trade promotion. These 
public-private shared funds have been proven to be dollars well spent. 
Agricultural exports continue to be one of the shining stars in our 
balance of trade with other countries. Exports also help relieve the 
burdens of abundant productions that we have endured in the past.
    In summation I would ask the Committee to please maintain the 
flexibility of any program that would be proposed to allow individuals 
who have different needs to see some benefit.
    I thank the Committee for their time and would happy to answer any 
questions they may have.

Kendall Hodgson.

    The Chairman. Thank you.
    Mr. Giessel, you may begin when you're ready.

   STATEMENT OF THOMAS ``TOM'' GERARD GIESSEL, WHEAT, CORN, 
            SORGHUM, SOYBEAN, ALFALFA, AND COW/CALF
                      PRODUCER, LARNED, KS

    Mr. Giessel. Chairman Lucas, Representative Huelskamp, and 
Representative Conaway, thank you for the opportunity to share 
what I think are the most important issues to consider in the 
next farm bill.
    My name is Tom Giessel. I'm a fourth generation family 
farmer from Pawnee County, Kansas. My brother Jay and I raise 
winter wheat, grain sorghum, corn and alfalfa, and a small 
percentage of the land is irrigated. We formerly had a cow/calf 
herd as well. I'm a member of five cooperatives and Kansas 
Farmers Union, and participate in several other farm and rural 
organizations. I've taken an active interest in farm policy 
since 1975.
    One of the foregone conclusions of the farm policy debate 
is that direct payments will not be part of the next farm bill. 
While I understand the concerns that many farms have with the 
end of this support, the experience I've had on my farm shows 
that the fixed payments don't amount to that much. Last year I 
received about $10 per acre through direct payments. Just in 
fertilizer alone, I spent over $220 an acre preparing irrigated 
corn for planting this year. These costs might make direct 
payments seem insignificant, but I would much rather see the 
$10 an acre be used to support programs that will kick in when 
I really need it. The loss of direct payments is overblown and 
I encourage the Committee to find a way to provide assistance 
when it's actually needed.
    There has been much discussion about crop insurance as the 
base of the next farm bill. That makes sense. Just about all 
crop insurance products work very well when prices are high. 
However, when prices return to normal times, crop insurance may 
not be as appealing. From my perspective as a crop farmer, I 
have seen relatively few high price spikes and rarely was in a 
position to take advantage of them. In my 37 years of farming, 
I have rarely sold $5 wheat and $4 corn. When prices are low, 
which are more common than when prices high, a revenue product 
that doesn't provide much help will not be attractive. Because 
of this, crop insurance should not be the only component of the 
next farm bill. Farmers need a safety net that works in time of 
need; not just all the time.
    I appreciate that there are limited budgets and limited 
appetite for farm payments. While many of the proposals of the 
farm bill commodity title try to solve the problem presented by 
shallow or deep losses that might not otherwise be covered by 
crop insurance, none of them address the prolonged market 
failures, either very low or, actually, very high prices. The 
Committee should be proactive in finding a solution that 
addresses these realities.
    I support the Market-Driven Inventory System, or I'll use 
the acronym, MDIS, which is voluntary farmer-owned and will 
allow commodity markets to work better. MDIS takes the tops off 
the peaks and fills the valleys. It dampens the volatility, so 
it's not damaging all sectors of ag--that is so damaging to 
some sectors of agriculture.
    A study by the University of Tennessee found that between 
1998 and 2010, government spending on direct and 
countercyclical payments and disaster programs was $152 
billion. With MDIS, it would have been only $56 billion, a 
savings of nearly almost $100 billion. With MDIS, net farm 
income averaged only slightly lower, which is impressive, 
considering the savings and the effective safety net provided 
by the program. MDIS will reduce price volatility, which helps 
farmers, livestock producers, biofuels industry, consumers, and 
the hungry around the world. MDIS will also make sure that 
farmers receive the bulk of their revenue, even in some tough 
times, from the market and not the mailbox. I urge you to 
consider the Market-Driven Inventory System as a farm program 
that will function as a true safety net.
    As a rural resident, I understand the importance of 
delivery of these farm programs. It is essential that farmers 
and ranchers have access to FSA and other USDA agency offices. 
I also encourage the Committee to push for greater autonomy and 
authority for FSA County Committees to meet the needs of 
farmers in their local areas.
    Additionally, I know that regulations have been discussed 
at length by this Committee. I agree that farmers should be 
able to operate their enterprise without much trouble from 
anyone. Nonetheless, I cannot think of a single one of my 
neighbors who have gone out of business because of too much 
regulation. I can, however, point to many that have had to sell 
their farm or their cow herd because of under enforcement of 
antitrust laws, manipulation of commodity markets, and other 
lax protection from those of greater power than the farmer.
    My final thought would be on conservation, and for me, 
conservation must be more than just a title on a farm bill. You 
know, starting with about the 1996 Farm Bill, farmers have been 
encouraged to try to grow two blades of grass where only one 
has grown before. All our production is costly in so many ways. 
Specifically, it drains resources; resources that we are 
borrowing from future generations. Conservation is an ethic; an 
ethic which farm policy should be built around.
    Thank you for the opportunity to share my ideas and I'll 
answer questions at the appropriate time.
    [The prepared statement of Mr. Giessel follows:]

   Prepared Statement of Thomas ``Tom'' Gerard Giessel, Wheat, Corn, 
      Sorghum, Soybean, Alfalfa, and Cow/Calf Producer, Larned, KS
    Thank you for the opportunity to share with you the important 
issues, as I see them, for Congress to consider in the next farm bill. 
My name is Tom Giessel and I'm a fourth-generation family farmer from 
Pawnee County, Kansas. My brother Jay and I raise winter wheat, grain 
sorghum, corn, and alfalfa, with a small percentage of the land 
irrigated. We formerly had a cow/calf herd as well. I'm a member of 
five cooperatives as well as Kansas Farmers Union, and participate in 
several other farm and rural organizations. I have taken an active 
interest in farm policy, especially since 1975, and have followed the 
ebb and flow of concepts to ensure that family farmers, ranchers and 
rural America have an opportunity to thrive.
    I know that today's budget environment is challenging, but I also 
understand that tomorrow's budget situation is not likely to be any 
more favorable. The agriculture community has been clear in saying it 
is willing to bear its fair share of cuts in order to contribute toward 
deficit reduction, but they must be proportional to cuts in other 
sectors. I respectfully urge Members of the Committee to consider the 
critical and tenuous nature of our nation's food security when 
considering the next farm bill. Production agriculture is a primary 
economic driver, and as such, when production agriculture prospers, a 
multiplier effect results and jobs and tax revenues at the local, 
state, and national levels are added without raising tax rates. 
Spending reductions that adversely impact the productivity and 
profitability of production agriculture are counterproductive to our 
overall national economic interests. Family farmer- and rancher-owned 
and operated food, fuel, and fiber production is the most economically, 
socially and environmentally beneficial way to meet the needs of our 
nation.
    Our national farm and food policy affects all Americans, urban and 
rural, food producers and food consumers. We have the opportunity to 
shape this important policy only once every few years. Our nation's 
family farmers, who are those most vulnerable to risk, need an 
effective and fiscally responsible safety net to mitigate the effects 
of weather and market volatility in order to achieve our food and 
energy security goals and to preserve jobs in rural America. As the 
Members of the Committee know, agriculture is an industry that is very 
different from any other, with market behavior that defies typical 
supply and demand economics, high input costs, and the constant risk of 
weather disasters threatening our nation's producers. Farmers should 
not receive support in the good times, but farm policy should instead 
provide economic security to farmers, who have little market power, in 
bad times. Our nation's farmers need a more effective and fiscally 
responsible safety net to mitigate the effects of weather and market 
volatility and to achieve our food and energy security goals.
Additional Farm Bill Priorities
    Congress should continue investments in rural America through farm 
bill conservation and energy programs. Demand for these initiatives 
remains high and yet these programs are chronically under-funded in the 
annual appropriations process, which results in program backlogs. 
Congress should provide a flexible conservation toolbox in the 2012 
Farm Bill that includes streamlined program delivery for working lands, 
land retirement and easement programs, coupled with significant Federal 
funding and flexible local planning authorities.
    Additionally, the 2008 Farm Bill included language that established 
and continued important research, animal health, marketing, and 
disaster programs related to livestock production, which brought 
additional interests into the farm bill process. The livestock title 
mandated country-of-origin labeling (COOL) for meat, fish, perishable 
agricultural commodities, and assorted other food products, which has 
been a long awaited and very beneficial law for farmers and consumers 
alike. A livestock title should be a part of the 2012 Farm Bill and 
must maintain the progress established by the previous farm bill.
    National nutrition policy must address both the quantity and 
quality of food available to needy Americans, and nutrition programs 
should place an emphasis on fresh and local food to ensure that 
Americans of all income levels have access to healthy, nutritious 
foods. The local food procurement directive of the 2008 Farm Bill must 
be continued and further emphasized in the 2012 Farm Bill, and further 
incentives should be provided for Supplemental Nutrition Assistance 
Program (SNAP) and other Federal nutrition program recipients to use 
their benefits at farmers markets, achieving dual objectives of 
providing healthy food to those who need it most and supporting family 
farmers and ranchers.
Market-Driven Inventory System: An Overview
    In 2011, a study by University of Tennessee's Agricultural Policy 
Analysis Center (APAC), under the leadership of Dr. Daryll E. Ray, 
director, and Dr. Harwood Schaffer, research assistant professor, 
developed a farm program concept that would moderate extreme volatility 
in commodity markets while allowing farmers to receive their income 
from the marketplace rather than from government payments, saving the 
Federal Government a significant amount of money in the process.
    The Market-Driven Inventory System (MDIS) developed by Dr. Ray is 
an agricultural commodity program that mitigates price volatility, 
providing advantages to livestock producers, the biofuels industry, and 
to hungry people in this country and around the world. In addition, it 
would reduce government expenses, increase the value of crop exports, 
and maintain net farm income over time. The central feature of MDIS is 
a voluntary, farmer-owned and market-driven inventory system that 
operates under market forces during normal conditions but moderates 
prices at the extremes. Inventory stocks activity would only be 
activated when crop prices become so low or so high that normally 
profitable agricultural firms are not provided with reasonable 
investment and production signals. By working with the market, MDIS 
would ensure that farmers receive their income from the market instead 
of from government payments.
    In the wake of the extreme commodity price volatility seen from 
2006 to 2010, many of our international counterparts have revitalized, 
constructed or made plans for a grain inventory management system on a 
national level. The international community has also of late called for 
the establishment of a global `` `virtual' internationally coordinated 
reserve system for humanitarian purposes,'' first mentioned in the G8 
Leaders' Statement on Global Food Security at the Hokkaido Toyako 
Summit on July 8, 2008, and more recently at the November 2011 G20 
summit in Cannes, France.
    This two-phase study found that MDIS can provide the functions 
sought by American family farmers and ranchers and our international 
brothers and sisters. The first portion of the study (Phase I) is a 
rerun of history from 1998 to 2010 with one change: the commodity 
programs during that period are replaced with MDIS. The second (Phase 
II) uses the U.S. Department of Agriculture (USDA) 10 year baseline 
released in February 2012 as the starting point for the analysis. 
Because 10 year-ahead baseline projections lack real world variability, 
a pattern of shocks that roughly mimic the variability experienced by 
crop agriculture from 1998 to 2010 were imposed on the projections.
    The POLYSYS simulation model, developed by APAC, is the analytical 
model used in this analysis. POLYSYS simulates changes in policy 
instrument levels and/or economic situations as variation away from a 
baseline situation. Crop allocation decisions are made with linear 
programming models using county-level data as a proxy for farm-level 
decisions. The crop prices and demands as well as all livestock 
variables are estimated at the national level. National estimates of 
revenues, costs and net returns are also estimated.
MDIS Phase I: A Historical Analysis
    Phase I explores the extremely volatile commodity price period 
between 1998 and 2010 using historical data as the baseline. In this 
portion of the analysis, the actual historical supply, demand and price 
numbers are compared with what those numbers are estimated to have been 
had MDIS been in effect.
    During the 1998 to 2010 time period, actual government payments for 
the eight program crops (corn, wheat, soybeans, grain sorghum, barley, 
oats, cotton and rice) totaled $152.2 billion, excluding crop insurance 
premium subsidy payments. If MDIS had been in place during this time, 
farmers would have received $56.4 billion from the government (in 
storage payments), while earning roughly the same net farm income over 
the period as historically received (figures 1 and 2). With MDIS in 
effect, annual net farm income would have been, on average, higher in 
the early part of the period (1998 to 2005) and lower in the latter 
part of the period (2006 to 2010) but for the full 13 years under MDIS, 
net farm income averaged only slightly lower ($51.1 billion versus 
$52.1 billion). MDIS would have proven to provide an effective safety 
net for farmers, remove the volatility from the commodity market and 
reduce government payments by approximately \2/3\.
Figure 1: Government Payments for 8 Crops: 1998-2010



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Fig. 1 compares the Federal cost of the farm bill programs that 
        were implemented from 1998 to 2010 to the cost of MDIS if it 
        had been in place during this time frame. The analysis found 
        that, had MDIS been implemented instead of the farm bill 
        programs that were in place, the Federal Government would have 
        saved more than $95 billion over the 13 year period.
Figure 2: Realized Net Farm Income, 1998-2010



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Fig. 2 compares net farm income from the farm programs that 
        were implemented from 1998 to 2010 to what net farm income 
        would have been had MDIS been in place during this time frame. 
        The analysis found that net farm income would have remained 
        virtually unchanged over the 13 year period.

    For the entire 13 year period, the value of production under the 
baseline policies was $413 billion while with MDIS it would have been 
$446 billion--a difference of $2.6 billion per year. Crop prices were 
significantly higher under MDIS in the early part of the period, and 
for the full 1998 to 2010 period prices were higher by $0.25, $0.50 and 
$1.00 per bushel for corn, wheat and soybeans, respectively, compared 
to actual prices.
    Had MDIS or a similar inventory-based commodity program been in 
effect from 1998 to 2010, the value of crop exports would have exceeded 
the actual value of exports during that period (figure 3). A higher 
crop price does cause a reduction in the quantity exported, but that 
decline is less than the increase in price. As a result, the value of 
exports increases with rising prices and decreases with price declines. 
As an aside, this property does not bode well for the future direction 
of the change in value of agricultural exports over the next few years 
if prices decline.
Figure 3: Annual Value of Exports for 8 Crops (1998-2010)



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Fig. 3 compares the historic export value of the eight program 
        crops from 1998 to 2010 to their value if MDIS had been in 
        place during this time frame. The analysis found that, had MDIS 
        been implemented instead of the farm bill programs that were in 
        place, the export value of the eight program crops would have 
        been greater over the 13 year period.
MDIS Phase II: Future Projections
    Phase II is based on USDA baseline projection data for 2012 to 2021 
as the beginning point of the analysis, but production shocks were used 
to mimic the variability that crop and livestock agriculture 
experienced between 1998 and 2010. Crop yields ten percent above the 
baseline for the eight major crops for the 2012 through 2014 crop years 
were imposed, and in the 2017 and 2018 crop years a ten percent 
decrease below baseline yields was used, along with a five percent 
decline in 2019. The purpose of these yield shocks was to reproduce 
price conditions similar to those that were seen in 1998 through 2010--
a timeframe that saw both low prices accompanied by massive government 
payments and record high prices. The resulting comparisons below are 
between this shocked baseline assuming continuation of current 
commodity programs and the MDIS alternative. The MDIS simulation 
includes the same production shocks.
    Government payments with a continuation of the current programs and 
shocked production total $65 billion over the 10 years from 2012 to 
2021. With MDIS in place, government payments are estimated to total 
$26 billion, or 60 percent less (figure 4).
Figure 4: Government Payments for 8 Crops: 2010-2021



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Fig. 4 compares the projected Federal cost if current farm 
        programs are extended to the projected net farm income under 
        MDIS from 2010 to 2021 under three scenarios. First, if current 
        programs are extended and annual values match USDA's baseline 
        projections; second, if current programs are extended and 
        supply/demand shocks are felt (as described earlier in the 
        document), and; third, if supply/demand shocks occur but MDIS 
        programs are in place. The analysis projects that government 
        payments would be $39 billion lower if MDIS is implemented 
        rather than extending current programs.

    Net farm incomes averaged over the 10 years are nearly identical--
$79.2 billion per year under the current programs and slightly higher 
with MDIS, $79.6 billion (figure 5).
Figure 5: Realized Net Farm Income, 2010-2021



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Fig. 5 compares the projected net farm income if current farm 
        programs are extended to the projected net farm income under 
        MDIS from 2010 to 2021 under three scenarios. First, if current 
        programs are extended and annual values match USDA's baseline 
        projections; second, if current programs are extended and 
        supply/demand shocks are felt (as described earlier in the 
        document), and; third, if supply/demand shocks occur but MDIS 
        programs are in place. The analysis projects that net farm 
        income would be slightly higher under MDIS than under current 
        programs in either scenario.

    Because crop prices average higher with MDIS than under the current 
program, the value of exports over the 10 year period is higher with 
MDIS by $15 billion, or $1.5 billion per year, on average (more in the 
first part of the period and less in the latter part of the period) 
(figure 6).
Figure 6: Value of Exports--8 Crops, 2010-2021



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Fig. 6 compares the projected export value of the eight program 
        crops from 2010 to 2021 to their projected value if MDIS is in 
        place during this time frame. The analysis projects that, if 
        MDIS is implemented instead of extending the current farm bill 
        programs, the export value of the eight program crops would be 
        $15 billion more over the study period.
MDIS: Mechanics
    For Phase I, the beginning corn loan rate is halfway between the 
variable cost of producing a bushel of corn and the corresponding total 
production cost. In 1998 that number is computed to be $2.27 per bushel 
of corn. The 1998 loan rates for other crops are then computed to be in 
the same proportion to corn loan rates as those legislated by the 
Federal Agriculture Improvement and Reform (FAIR) Act of 1996 (the 1996 
Farm Bill) in order to minimize distortion, except for grain sorghum, 
for which the loan rate is raised to be equal to that of corn, and 
soybeans, for which the loan rate is raised to $6.32. The loan rates of 
all crops are adjusted for 1999 through 2010 using USDA's prices-paid-
by-farmers chemical input index.
    The analysis for Phase II of the study follows the approach and 
most of the basic specifications used for Phase I. The loan rates for 
this analysis (all in dollars per bushel) are: $3.50 for corn, grain 
sorghum and barley, $2.49 for oats, $5.28 for wheat and $8.97 for 
soybeans. The loan rates have the same proportion to corn as the loan 
rates in the Food, Conservation and Energy Act of 2008 (2008 Farm 
Bill). Loan rates are held constant for the full 2012 to 2020 period.
    The maximum quantities of grain allowed in the MDIS inventory in 
both Phase I and Phase II are specified to be 3 billion bushels of 
corn, 800 million bushels of wheat and 400 million bushels of soybeans. 
Inventory maximum levels for other program crops would be set as 
appropriate. Farmers with MDIS recourse loans are paid $0.40 per bushel 
per year to store the grain and are required to keep the grain in 
condition.
    With MDIS in operation, markets work uninterrupted until prices are 
estimated to fall below a recourse loan rate or, if MDIS inventory is 
available, prices exceed 160 percent of the loan rate.
    When prices fall below the loan rate, the model estimates the 
amount of grain that farmers would need to put under recourse loan with 
the Farm Service Agency (FSA) to raise the market price to or above the 
loan rate, which is the ``price'' that FSA uses to value the grain used 
as collateral for the loan. If a market price is estimated to exceed 
160 percent of the loan rate, the model checks to see if there is an 
inventory stock in the MDIS farmer-owned inventory. If MDIS inventory 
is available, the model computes the quantity needed to lower price to 
about 160 percent of the loan rate and allows that amount of stock onto 
the market. Setting the release price at 160 percent of the loan rate 
is the key to establishing a functional system. The market does not 
work as effectively within the model at higher or lower loan rate-
release price ratios.
    The grain under MDIS must stay in inventory, that is, it cannot be 
redeemed by paying off the loan and marketed until the price goes above 
the release price of 160 percent of the loan rate and notification is 
specifically received. With MDIS in effect, all government payment 
programs (countercyclical payments, loan deficiency payments, fixed or 
direct payments, etc.), except MDIS inventory storage payments and crop 
insurance subsidies, are eliminated for corn, grain sorghum, oats, 
barley, wheat, and soybeans. An optional set-aside would be available 
for use at the Secretary's discretion if MDIS inventory maximums are 
reached and prices fell below loan rates. Rice and cotton are not 
included in MDIS and are assured to remain eligible for current program 
payments.
History of Commodity Programs--How Did We Get Here?
    With the adoption of the FAIR Act of 1996, which extended the 
marketing loan program to all crops, the holding of grains either by 
the Commodity Credit Corporation or farmers in a farmer-owned reserve 
was made ineffective. Part of the logic behind the end of these grain 
storage programs was the belief that if there were a need for stocks, 
participants in the commercial sector would buy up those stocks at a 
low price and later sell them at a higher price with no cost to the 
government. Recent history has demonstrated that those commercial 
inventories simply did not come into existence and the market has seen 
numerous countries impose harmful export limitations of their 
domestically produced foodstuffs in the face on citizen concern over 
food shortages. In the U.S., we have even heard concerns from the 
livestock sector over the availability of sufficient feed supplies.
    The 1996 Farm Bill instead established the present system of direct 
and countercyclical payments. Almost immediately after the 1996 bill, 
the market changed and commodities prices began to decline. From 1996 
until 2004, the value of agricultural exports fell from an all time 
high of $27.3 billion to $10.5 billion.\1\ From 1996 until 2005, corn 
prices fell to an average of $2.06 per bushel, wheat an average of 
$3.03 per bushel and soybeans an average of $5.33 per bushel.\2\ The 
elimination of reserves and new incentives to plant program acres 
combined to result in widespread overproduction, devalued crop prices 
and thus an increase in the amount paid in government subsidies. The 
resulting system had no way to moderate wild swings in supply and 
market volatility that has proven detrimental not only to family 
farmers but also to consumers in developing countries, industries 
dependent upon agricultural commodities for inputs and rural economies.
---------------------------------------------------------------------------
    \1\ Jerardo, Alberto. February 2004. ``The U.S. Trade Balance . . . 
More Than Just a Number.'' U.S. Department of Agriculture-Economic 
Research Service.
    \2\ Ray, Daryll, et. al. March 2012. ``An Analysis of a Market 
Driven Inventory System (MDIS)'' University of Tennessee Agricultural 
Policy Analysis Center.
---------------------------------------------------------------------------
    In times of high commodity prices, such as current market 
conditions, target prices are set so low that even in the case of a 
market downturn, the countercyclical program does not reflect the 
rising cost of production or provide an adequate safety net. Direct 
payments are increasingly indefensible to the public and unnecessary 
for farmers, as they get distributed based on historic production, 
regardless of current market price.
    As a result, from 1998 to 2010, government payments for crops 
totaled $152.2 billion.\3\ If MDIS had been in place for corn, wheat 
and soybeans between 1998 and 2010, government payments to farmers 
would have been reduced by nearly \2/3\ to $56.4 billion, the value of 
exports would have increased, average commodity prices for farmers 
would have been higher, damaging price volatility would have been 
substantially reduced and overall farm income would have been left 
effectively unchanged.\4\
---------------------------------------------------------------------------
    \3\ Ibid.
    \4\ Ibid.
---------------------------------------------------------------------------
MDIS and the Federal Deficit
    As Congress continues to seek ways to reduce the Federal deficit, 
any serious discussion regarding controlling government expenditures 
should include MDIS. APAC's analysis over the 10 years from 2012 to 
2021 found that government payments with a continuation of the current 
program and shocked production remain unsustainably high, totaling $65 
billion. However, with MDIS in place, estimated government payments 
over the same period total $26 billion, a 60 percent reduction (figure 
4).\5\
---------------------------------------------------------------------------
    \5\ Ray, Daryll, et. al. March 2012. ``An Analysis of a Market 
Driven Inventory System (MDIS)'' University of Tennessee Agricultural 
Policy Analysis Center.
---------------------------------------------------------------------------
    MDIS could save tens of billions of dollars paid under existing 
government payment programs and the additional tens of billions in 
``emergency'' payments and government subsidies to revenue insurance 
programs otherwise needed to offset the almost inevitable periodic 
severe collapses in grain prices. Under MDIS, grain farmers receive 
their income from the market and grain demanders are not subsidized or 
overcharged.
Permanent Disaster Programs
    The unpredictability and inefficiencies associated with ad hoc 
disaster programs led to the inclusion of the Supplemental Revenue 
Assistance Program (SURE) and other related programs, such as the 
Emergency Assistance for Livestock, Honey Bees and Farm-Raised Fish 
Program (ELAP), the Livestock Indemnity Program, and more, in the 2008 
Farm Bill. These permanent disaster programs were intended to allow 
farmers and ranchers to recover quickly from devastating weather 
without waiting for piecemeal disaster assistance. Unfortunately, that 
set of programs was inadequately funded and oversight challenges 
postponed many of the rules and regulations needed to implement the 
programs. Even in 2010, there were farmers still awaiting their claims 
for 2007 losses. SURE and similar initiatives were a hard-won victory 
for family farmers and ranchers and those programs' guiding 
principles--to protect farmers against catastrophic yield losses--ought 
to be included and appropriately implemented in the next farm bill.
    In the next farm bill, permanent disaster programs must be funded 
at a level that makes them effective and eliminates the need for ad hoc 
payments. Partial advance payments should be made available so that 
assistance can be quickly provided in times of desperate need. Decision 
makers must ensure that we can continue the work that was done with 
SURE and other programs in 2008. Returning to a system of ad hoc 
disaster programs is likely to be much more costly for both the Federal 
Government and for farmers. Not only are ad hoc programs expensive, but 
they are also difficult to administer, extremely political, and not 
solely influenced by real conditions and/or need. Between 1996 and 
2002, when the commodity title was removed from the farm bill, 
approximately $30 billion was spent on ad hoc disaster programs.\6\ The 
cost to extend SURE and similar disaster assistance programs for 5 
years in a 2012 Farm Bill is projected to be $8.9 billion,\7\ and 
baseline funding for the permanent disaster programs expired in 2011. 
It should also be noted that any disaster program would likely be less 
costly if the MDIS concept were also included in the next farm bill.\8\
---------------------------------------------------------------------------
    \6\ USDA Economic Research Service, retrieved from http://
www.ers.usda.gov/Data/FarmIncome/FinfidmuXls.htm.
    \7\ Congressional Budget Office.
    \8\ Ray, Daryll, et. al. March 2012. ``An Analysis of a Market 
Driven Inventory System (MDIS)'' University of Tennessee Agricultural 
Policy Analysis Center.
---------------------------------------------------------------------------
    Even though permanent disaster programs were enacted in the 2008 
Farm Bill, ad hoc disaster relief efforts were authorized in 2010. This 
is likely due to the fact that SURE and the other programs were not as 
effective or fast-moving enough to satisfy the needs of farmers who 
were affected by disaster. If disaster programs were strengthened, 
these legislative solutions would likely be unnecessary. It should also 
be kept in mind that disaster programs are among the few farm bill 
programs that provide roughly equal benefits to both farmers and 
ranchers. Including a set of previously unaffected sectors of 
agriculture in Federal farm policy would generate more support for the 
overall farm bill.
    It is important that farmers do their part by responsibly sharing 
in the inherent business risks of their farm. The distribution of 
disaster aid must remain linked to crop insurance participation, and 
SURE participants should be required to purchase more than just 
catastrophic (CAT) coverage so that they are able to reasonably recover 
some of their losses through crop insurance.
    Any improvements in disaster programs should not come at the 
expense of program delivery. County FSA staff who service these 
programs are pushed to the limits of their resources as it is, and 
their offices need adequate funding and modern technology in order to 
continue to serve our country's farmers. A consistent, predictable and 
stable backup plan for farmers struck by weather-related problems is 
the most important benefit of having a permanent disaster aid program. 
Any efforts to improve upon it should not interrupt the positive 
results SURE and other disaster programs provided.
Risk Management
    Crop insurance is an important safety net mechanism that provides 
assistance to farmers only when assistance is needed. It is fully 
compatible with MDIS and, as such, crop insurance must remain a 
cornerstone of farm policy. Risk management tools must be made 
economical for all farmers, regardless of crop or geographic region, 
and more insurance products should be made available that protect 
against changes in the cost of production. Farmers also need protection 
against losses due to weather-related disasters, high input costs or 
devastatingly low prices. There should also be efforts aimed at 
streamlining and eliminating duplication among existing farm bill 
programs. Risk management provisions in the next farm bill should 
extend the availability and affordability of Federal Crop Insurance 
Programs to farmers in portions of the country that have not 
historically carried significant levels of crop insurance, thereby 
reducing the need for disaster aid.
    I support the reestablishment of compliance requirements for 
Federal crop insurance eligibility so that all existing or new crop and 
revenue insurance or other risk management programs are subject to all 
conservation compliance provisions.
    Crop insurance coverage should be improved for organic producers, 
including ending the existing surcharge on organic policies and the 
full implementation of coverage levels based on organic prices. 
Additionally, crop insurance products and other risk management tools 
should be developed for specialty crop producers. Funding levels for 
crop insurance must remain adequate as it is the most critical and 
effective safety net for farmers and crop insurance has already been 
subjected to recent significant cuts.
    Recent budget cuts to crop insurance, which subtracted from the 
farm bill baseline, were made since the last farm bill. We urge 
lawmakers to carefully consider the effects of reduced funding for crop 
insurance programs. Cuts should not come at the expense of greatly 
increased risk management costs for farmers. Continued vigilance should 
be maintained to prevent the abuse of crop insurance programs, but crop 
insurance must remain a part of the next farm bill. Costs associated 
with the Federal Crop Insurance Program have risen as crop insurance 
has taken on additional importance in the suite of safety net tools in 
the farm bill. Although costs have increased over the long run, total 
costs of the crop insurance program were cut nearly in half between 
2008 and 2010. Most of the savings came from reductions in net 
indemnities, although reductions to administration and overhead 
subsidies for approved insurance providers have made for decreased 
spending as well.
    There are also a few adjustments to the mechanisms of the crop 
insurance programs that should be considered. All risk management 
programs should be based upon Actual Production History (APH), and for 
situations that the APH is not available, the qualified yield for a 
farm should not be set at a lower level than that of county FSA 
calculations. In order to protect farmers in the event of successive 
crop disasters, we also urge the establishment of APH yield floors. 
These common sense approaches to crop insurance will help to ensure 
that losses are accurately reflected in indemnities.
    Crop insurance is not the be-all and end-all for a farm safety net. 
Without reducing the volatility that plagues agriculture commodity 
markets with MDIS, revenue-based crop insurance products will be 
extremely expensive in high price periods and will provide little, if 
any, assistance to farmers when prices collapse. Farmers would much 
rather see a farm policy that also includes MDIS and disaster 
assistance programs to moderate the volatility of the agricultural 
marketplace and yields so that farmers can continue to farm.
MDIS Benefits Stakeholders
    MDIS holds numerous benefits for a variety of stakeholders, 
including farmers, the environment, livestock producers, the ethanol 
industry, taxpayers and the food insecure worldwide.
MDIS Benefits Farmers
    MDIS helps smooth out some of the wild price swings that can put 
some farmers out of business. By providing a greater level of income 
certainty, MDIS helps farmers plan for the future without decreasing 
farm income. Land prices and input costs rise dramatically when 
commodity prices rise, but when prices drop, these costs do not drop 
correspondingly. With a reasonable loan rate, farmers could make long-
term investments in their farming operation that improve their long-
term profitability.
    Farmers who put their corn, wheat and/or soybeans into the 
inventory system would benefit from the receipt of storage payments. 
They would also benefit from the future sale of their stored commodity 
at the higher release price. With MDIS in effect, annual net farm 
income was higher, on average, in the early part of the period from 
1998 to 2005 and lower in the latter part of the period from 2006 to 
2010, but for the full 13 years, the MDIS net farm income averaged only 
slightly lower ($51.1 billion versus $52.1 billion). The low-price 
years would reduce the tendency to capitalize higher returns into land. 
While sufficient to keep current land in production, the moderated 
prices do not provide the kind of price signals that would lead to an 
over-expansion of productive capacity and lower prices over the longer 
term. Net farm incomes averaged over the 10 years are almost identical 
($79.2 billion per year under the current program and slightly higher 
with MDIS at $79.6 billion). From 1998 to 2010, farmers would have 
benefited from price signals that more accurately reflect the supply/
demand situation at a given time, than when futures prices reflect 
herd-following speculative behavior on the part of some market 
participants.
MDIS Benefits Conservation
    MDIS holds significant conservation benefits because price 
stability puts less pressure on environmentally sensitive land. During 
high price years, for example, demand pressures on land is reduced 
because farmers will not be incentivized to break native grassland or 
bring Conservation Reserve Program acres back into crop production. 
During low price years, net farm income would remain higher under MDIS. 
This means that farmers have more money to invest in conservation in 
order to meet their cost-share requirements under programs such as the 
Environmental Quality Incentives Program.
MDIS Benefits Livestock Producers
    Less volatile commodity prices under MDIS help livestock producers 
keep input costs more stable and help prevent skyrocketing grain 
prices, which can bankrupt livestock producers. In the 2006 to 2010 
period, higher prices put some producers over the financial edge; 
however, MDIS would have reduced commodity prices to a more reasonable 
and survivable level. Livestock producers are vulnerable to rapidly 
increasing feed prices, which they cannot quickly pass on to the 
consumer. Overall, MDIS would have provided livestock producers and 
industrial users with security in the availability of feed supplies and 
a more reasonable range of prices.
MDIS Benefits the Ethanol Industry
    Abnormally high commodity prices are also damaging to the ethanol 
industry and can cause disruptions in the supply chain. Having access 
to a stable supply within a more predictable price range allows ethanol 
producers to engage in long-range planning. MDIS decreases price 
fluctuation faced by ethanol plants and ensures more stable production, 
which in turn helps put America on the road to energy independence.
MDIS Benefits Taxpayers
    Throughout the study period, government payments for crops totaled 
$152.2 billion. Had MDIS been in place from 1998 to 2010 rather than 
the existing programs, taxpayers could have saved more than $95 billion 
compared to what the Federal Government actually spent on farm 
programs. This is a nearly 60 percent reduction in expenditures. 
Government payments with a continuation of the current programs and 
shocked production total $65 billion over the 10 years from 2012 to 
2021; with MDIS the estimated cost is $26 billion, also a 60 percent 
reduction.
    Equally important, MDIS addresses perceptions among some consumers 
that the government is giving unwarranted handouts to farmers. By 
setting up a system that allows the price to range closer to costs of 
production, these policies allocate the costs to the major users of 
commodities, both domestic and international, rather than expecting the 
U.S. Federal Government to subsidize their purchases. In addition to 
the benefits they would receive under MDIS as taxpayers, U.S. consumers 
would benefit from more stable commodity prices that would reduce the 
volatility of food costs. While commodity prices under MDIS increased 
in the 1998 to 2005 period according to the model, the farm portion of 
most processed food costs that U.S. consumers eat is relatively small, 
resulting in minimal long-term pressure on food prices. Average 
commodity prices in the 2006 to 2010 period under MDIS would not have 
increased as much as they did under existing policies, reducing upward 
pressure on food prices.
MDIS Benefits the Impoverished
    In developing nations, a small increase in commodity prices can 
mean the difference between putting food on the table and going hungry. 
MDIS reduces the price swings that cause many people who are directly 
reliant upon staple crops like corn to go hungry when they can no 
longer afford food. Importers of U.S. corn, wheat and soybeans would 
have been assured of a stable supply of storable commodities, reducing 
the need for countries to protect local supplies of grains.
    With farmers constituting as much as 60 to 70 percent of the poor 
in developing countries, higher prices in the 1998 to 2005 period under 
MDIS would not adversely affect these farmers because of the large 
amount of food that they produce for self consumption. In addition, 
they would receive a more stable income for the product they do sell 
into the market. In times of high prices, many subsistence farmers and 
urban poor are often priced out of the market, increasing the number of 
chronically hungry persons in the world. As a result of the price spike 
in 2007 and 2008, more than 200 million people fell into the 
chronically hungry category. By moderating the price spikes, MDIS 
reduces the price pressure on the poor in developing countries. In 
addition, MDIS assures participants in the marketplace of an adequate 
supply of grain, reducing the hoarding tendency, which often results in 
localized price spikes.
Conclusion
    Many challenges lie ahead in the writing of the next farm bill. 
Funding will be tight and it will be critical to come together in a 
bipartisan manner to outline the top priorities for the omnibus 
agricultural legislation.
    The average American pays less than ten percent of his or her 
disposable income on food, which is the lowest rate of any 
industrialized nation in the world. It is a fantastic bargain. This 
deal is the result of our national investments in agriculture through 
farm policy, which have ensured that America's farmers and ranchers can 
continue to provide the safest and most abundant food supply in the 
world. The primary purpose of the next farm bill ought to be as a 
strong safety net that protects farmers and ranchers during tough times 
for the health of our nation and our rural economies. A forward-
thinking and well-designed safety net will be much more cost-effective 
than reactionary legislation that is put forward in times of 
emergencies.
    When writing the next farm bill, lawmakers must be penny-wise, but 
not pound-foolish. The MDIS program will have a cost, but as the study 
by the University of Tennessee demonstrates, it will save money in the 
long term. Permanent disaster programs, too, save money. For example, 
the U.S. spent $30 billion between 1996 and 2002 in emergency and ad 
hoc disaster programs to help farmers and ranchers when prices 
collapsed and the farm bill had no safety net for them.\9\ Keeping that 
in mind, the cost to extend SURE and similar disaster assistance 
programs for 5 years, which could have replaced those ad hoc disaster 
programs, is $8.9 billion.
---------------------------------------------------------------------------
    \9\ USDA Economic Research Service, retrieved from http://
www.ers.usda.gov/Data/FarmIncome/FinfidmuXls.htm.
---------------------------------------------------------------------------
    We must also complete the next farm bill this year to protect 
against even further cuts to agriculture. USDA cut $4 billion from 
agriculture programs by renegotiating the Standard Reinsurance 
Agreement in 2011. Congress approved a budget reduction to agriculture 
programs of more than 15 percent for Fiscal Year 2012, a cut that was 
two to three times deeper than the average across-the-board reduction 
in discretionary spending. By waiting until 2013 or later to complete 
the next farm bill, there may be even less funding available, making it 
nearly impossible to pass a farm bill that will protect America's 
family farmers and ranchers in tough times.
    By coming together in a strong, bipartisan fashion, it is possible 
to craft a fiscally responsible 2012 Farm Bill with an adequate safety 
net to protect America's family farmers and ranchers and to help make 
rural communities vibrant. On behalf of the members of National Farmers 
Union, thank you for the opportunity to outline our priorities and I 
look forward to working with you to enact this critical legislation.

    The Chairman. Thank you.
    Mr. Anderson, you may begin when you're ready.

    STATEMENT OF WOODY ANDERSON, COTTON AND WHEAT PRODUCER, 
                       COLORADO CITY, TX

    Mr. Anderson. Thank you, Mr. Chairman. I'm Woody Anderson, 
predominantly a dryland cotton farmer in West Texas, Colorado 
City, Texas. Actually, the locals call it ``Colo-ray-do'' City. 
It's located in the rolling plains, right in the middle of 
Midland and Abilene and Lubbock and San Angelo. I want to thank 
you and the rest of the Committee for the opportunity to share 
my views on the next farm legislation this morning. I'd also 
like to thank, a special thanks to my Congressman, Congressman 
Mike Conaway, for his work on this Committee and for his work 
as Chairman of the Subcommittee on General Farm Commodities and 
Risk Management, and for the great job he does for the 11th 
District of Texas.
    Agriculture is one of the most important industries in 
Texas and in the United States. As a result, an effective farm 
bill that supports production agriculture is also an effective 
jobs bill for the general economy. Overall, U.S. farmers have 
been benefitting from relatively high commodity prices, when 
compared to historical averages. However, it is important to 
remember that the cost of essential inputs, such as seed, fuel 
and fertilizer, are also at historically high levels. As a 
result, profit margins for many remain thin. Higher prices have 
also brought increased market volatility. When coupled with 
increasingly unpredictable weather, the risk of producing a 
crop has never been greater.
    As a dryland producer in Texas, I have firsthand experience 
of the risk that farmers face. In 2011, Texas suffered the most 
devastating drought since records have been kept. On my farming 
operation, I was unable to harvest even an acre of cotton that 
I had planted last year. Without the safety net provided by 
crop insurance and other programs, all authorized by farm 
legislation, it would have been virtually impossible to survive 
that devastating loss.
    As this Committee works to reauthorize farm legislation, I 
appreciate the challenges that are posed--that have been posed 
by difficult budget times in Congress and by those in Congress 
that continually question the need for farm programs. While 
agriculture is willing to make a proportionate contribution to 
deficit reduction, it's vitally important that budget 
constraints and farm program critics not be allowed to 
undermine the effectiveness of our farm safety net.
    With respect to production agriculture, I strongly 
encourage this Committee to take into consideration the 
diversity of production prices, cost structures, and risk 
profiles. What works for my operation isn't going to be the 
same as for farmers in California, North Dakota, Iowa, or even 
here in Kansas. A one-size-fits-all program cannot address this 
diversity, and I hope that the eventual farm bill will offer a 
range of programs structured to address the needs of different 
commodities and production regions.
    I also urge the Committee to complete the farm bill this 
year. We need some certainty regarding farm programs as we look 
to investments necessary to keep our farming operations 
economically viable and to assure our bankers that there is 
going to be an adequate safety net.
    While I occasionally grow other crops, I consider cotton to 
be my primary crop. The 2008 Farm Bill served cotton farmers 
extraordinarily well and, in recent years, has required minimal 
Federal outlays. However, deficit reduction efforts are placing 
unprecedented pressure on the existing structure of farm 
programs. The cotton industry also faces the unique challenge 
of resolving the long-standing WTO Brazil case.
    In order to respond to the challenges of designing the most 
effective safety net with reduced funding and to make 
modifications that will lead to a resolution of the WTO case, 
it is very important that the next farm legislation includes 
the cotton industry's proposal of a new revenue-based crop 
insurance program which will result in strengthening the 
grower's ability to manage risk. By complementing existing 
products, the Stacked Income Protection Program, or STAX for 
short, will provide a tool for growers to manage that portion 
of their risk for which affordable products are not available 
currently. This revenue-based crop insurance safety net would 
be combined with a modified marketing loan that is adjusted to 
satisfy the WTO case. Even with those modifications, the 
marketing loan will remain an important source of cash flow for 
our producers and our merchants.
    Given the diversity of weather and production practices, 
the menu of insurance choices should be diverse and 
customizable, allowing for maximum participation and effective 
coverage. In the 2008 Farm Bill, the introduction of enterprise 
unit pricing gave producers one more option for insuring 
against risks that are beyond their control. I strongly support 
the continuation of that option in the 2012 Farm Bill and would 
urge consideration of expanding it to allow a producer to apply 
enterprise unit pricing to the acres that are separated by 
irrigated and non-irrigated.
    As a farmer who understands the vital importance of 
effective insurance products, I am very concerned about the GAO 
report that calls for limits on insurance payments. My concern 
is founded in the fact that crop insurance is a basic safety 
net that only indemnifies a grower when he incurs a loss. Even 
then, the grower is not made whole and is only compensated for 
a portion. For Texas, I can assure this Committee that any 
limits on eligibility requirements that deny farmers the 
opportunity to purchase affordable insurance products will 
completely undermine the ability to secure production 
financing.
    Farmers understand that agriculture is an extremely risky 
endeavor, but they also understand that effective risk 
management is a key to long-term viability. While the goal of 
farm programs is not to completely remove the risk associated 
with farming, farm programs should strive to provide 
opportunities for effective risk management, and for me 
personally, I think STAX accomplishes that goal.
    I very much appreciate the opportunity to provide these 
comments and I look forward to any questions at the appropriate 
time. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Anderson follows:]

   Prepared Statement of Woody Anderson, Cotton and Wheat Producer, 
                           Colorado City, TX
    I am Woody Anderson, a predominantly dryland cotton and grain 
producer from Colorado City, Texas. Colorado City is located in the 
Rolling Plains of Texas, right in the middle of Midland, Abilene, San 
Angelo, and Lubbock. I want to thank Chairman Lucas and Ranking Member 
Peterson for the opportunity to provide my thoughts on the next farm 
legislation. I would also like to offer a special thanks to my 
Congressman, Representative Mike Conaway, for his work on this 
Committee, his chairmanship of the Subcommittee on General Farm 
Commodities and Risk Management, and for his dedicated representation 
of 11th District of Texas.
    Agriculture is one of the most important industries in Texas and 
the United States. Numerous businesses, financial institutions and 
individuals provide supplies, financing and services to the farmers and 
ranchers that produce our nation's food and fiber. In Texas, it is 
estimated that farm and farm-related employment accounts for 14% of all 
jobs. As a result, an effective farm bill that supports production 
agriculture is also an effective jobs bill for the general economy.
    Overall, U.S. farmers are benefitting from relatively high 
commodity prices when compared to historical averages. However, it is 
important to remember that costs of essential inputs such as seed, fuel 
and fertilizer are also at historically high levels. As a result, 
profit margins remain thin. Higher prices have also brought increased 
volatility. When coupled with increasingly unpredictable weather, the 
risk of producing a crop has never been greater.
    As a dryland producer in Texas, I have first-hand experience of the 
risks farmers face. In 2011, Texas suffered the most devastating 
drought since record-keeping began. Statistics cited in a recent report 
by the Texas Comptroller indicate that direct and indirect losses from 
the drought are approaching $9 billion. On my farming operation, I was 
unable to harvest even an acre that I had planted to cotton. Without 
the safety net provided by crop insurance and other programs authorized 
by the farm legislation, it would be virtually impossible to survive 
such a devastating loss.
    As this Committee works to reauthorize farm legislation, I 
appreciate the challenges posed by the difficult budget climate in 
Congress and by those in Congress that continually question the need 
for farm programs. While agriculture is willing to make a proportionate 
contribution to deficit reduction, it is vitally important that budget 
constraints and farm program critics not be allowed to undermine the 
effectiveness of our farm safety net.
    With respect to production agriculture, I strongly encourage this 
Committee to take into consideration the diversity of production 
practices, cost structures and risk profiles. What works for my 
operation isn't going to be the same as farmers in California, North 
Dakota or Iowa. A one-size-fits-all farm program cannot address this 
diversity, and I hope that the eventual farm bill will offer a range of 
programs structured to address the needs of the different commodities 
and production regions.
    I also urge the Committee to complete the farm bill this year--in 
advance of the expiration of the current legislation. We need some 
certainty regarding farm programs as we look at the long-term 
investments necessary to keep our farming operations economically 
viable; and to assure our bankers that there is an adequate safety net.
    While my farming operation occasionally includes grain production, 
I consider cotton to be my primary crop. The 2008 Farm Bill has served 
cotton farmers extraordinarily well and, in recent years, has required 
minimal Federal outlays. However, deficit reduction efforts are placing 
unprecedented pressure on the existing structure of farm programs. The 
cotton industry also faces the unique challenge of resolving the 
longstanding Brazil WTO case.
    In order to respond to the challenge of designing the most 
effective safety net with reduced funding and to make modifications 
that will lead to the resolution of the Brazil case, it is very 
important that the new farm legislation includes the cotton industry's 
proposal of a new revenue-based crop insurance program which will 
result in strengthening growers' ability to manage risk. By 
complementing existing products, the Stacked Income Protection Plan, or 
STAX for short, will provide a tool for growers to manage that portion 
of their risks for which affordable options are not currently 
available. This revenue-based crop insurance safety net would be 
combined with a modified marketing loan that is adjusted to satisfy the 
Brazil WTO case. Even with modifications, the marketing loan will 
remain an important source of cash flow from merchandisers and 
producers.
    Farmers understand that agriculture is an extremely risky endeavor, 
but they also understand that effective risk management is the key to 
long-term viability. While the goal of farm programs is not to 
completely remove the risk associated with farming, farm programs 
should strive to provide opportunities for effective risk management. 
STAX accomplishes that goal.
    Given the diversity of weather and production practices, the menu 
of insurance choices should be diverse and customizable, allowing for 
maximum participation and effective coverage. In the 2008 Farm Bill, 
the introduction of enterprise unit pricing gave producers one more 
option for insuring against those risks that are beyond their control. 
I strongly support the continuation of that option in the 2012 Farm 
Bill, and would urge consideration for expanding the option to allow a 
producer to apply enterprise unit pricing to acres that are separated 
by irrigated and non-irrigated practices.
    Regarding crop insurance products, there has been increased 
scrutiny given to those programs as indemnities for the 2011 crop have 
increased. However, despite the dramatic increase in indemnities for 
last year's crop, total indemnities remain below total premiums, and 
thus, the program is operating at a loss ratio less than 1.0.
    As a farmer who understands the vital importance of effective 
insurance products, I am very concerned about a recent report by the 
Government Accountability Office that calls for limits on insurance 
programs. My concern is founded in the fact that crop insurance is a 
basic safety net than only indemnifies a grower when he incurs a loss. 
Even then, the grower is not made whole and is only compensated for a 
portion of his loss. The value of crop insurance coverage is based 
directly on the expected market value as determined in the futures 
market. In Texas, essentially all farmers purchase insurance on all of 
their acres in crop production. For cotton, most acres have coverage 
between 60 and 70%. If a grower receives an indemnity under that type 
of policy, that indemnity leaves a 30 to 40% loss that is 
uncompensated. Now, there are efforts by GAO and some in Congress that 
attempt to deny that basic coverage to producers by imposing arbitrary 
limits. I would also oppose any conservation compliance requirements in 
order to be eligible for Federal crop insurance benefits. For Texas, I 
can assure this Committee that any limits or eligibility requirements 
that deny farmers the opportunity to purchase affordable insurance 
products will completely undermine the ability to secure production 
financing.
    Along those lines, I also encourage this Committee to resist 
efforts to further tighten existing payment limits and income means 
tests on other support programs. Artificially limiting benefits is a 
disincentive to economic efficiency and undermines the ability to 
compete with heavily subsidized foreign agricultural products. 
Artificially limited benefits are also incompatible with a market-
oriented farm policy.
    As a final point, cotton farmers understand that our ability to 
produce a crop is directly tied to there being a strong and stable 
demand from the textile manufacturers that produce yarn, fabric and a 
wide variety of textile and apparel products. We are fortunate to sell 
our cotton to mills in the United States, as well as several countries 
in the international market.
    For U.S. mills, the 2008 Farm Bill introduced an economic 
assistance program, and I am pleased to say that the program has been a 
resounding success. We have seen a revitalization of the U.S. textile 
manufacturing sector, as evidenced by new investments and additional 
jobs. I urge this Committee to continue this program in the new farm 
bill.
    To maintain a healthy presence in highly competitive export 
markets, continuation of adequately funded export promotion programs 
such as the Market Access Program and Foreign Market Development 
Program is critical. Individual farmers and exporters do not have the 
necessary resources to operate effective promotion programs which 
maintain and expand markets--but the public-private partnerships, using 
a cost-share approach, have proven highly effective and have the added 
advantage of being WTO-compliant.
    I very much appreciate the opportunity to provide these comments 
and look forward to answering your questions at the appropriate time.

    The Chairman. Thank you.
    Mr. Hunnicutt, you may begin when you're ready.

  STATEMENT OF ZACHARY HUNNICUTT, CORN, SOYBEAN, AND POPCORN 
                      PRODUCER, AURORA, NE

    Mr. Hunnicutt. Thank you, Chairman Lucas and the rest of 
the House Agriculture Committee, for the opportunity to discuss 
the upcoming farm bill and its impact on my operation and the 
general farm economy.
    My name is Zach Hunnicutt and I'm a fifth generation farmer 
in Hamilton County, Nebraska, raising irrigated corn, soybeans, 
and popcorn with my father and brother. My wife Ann and I have 
two kids who will hopefully be the sixth generation on the farm 
one day. I've been farming full-time for 5 years, and though 
not representing any particular group today, my wife and I do 
serve on the Young Farmers and Ranchers Committee for Nebraska 
Farm Bureau and American Farm Bureau Federation.
    While the country's been mired in a protracted recession, 
constantly looking for evidence of green shoots, the 
agriculture section of the economy has flourished. Given the 
recent prosperity and the historic Federal budget deficit, the 
farm bill will be a target for cuts. I understand that the 
burden to reduce budgets will be shared across the board. 
However, I would encourage the Committee to ensure that farmers 
and ranchers are not penalized for this success by bearing an 
unequitable share of the cuts and would urge the Committee to 
provide an environment that allows flexibility for farmers to 
respond to market signals, to maintain healthy programs that 
have proven successful, and to take care in crafting a bill to 
make it as easily explained to the public as it can be.
    Federal crop insurance has been a valuable tool for our 
operation and I would strongly oppose harming this program. The 
ability to purchase insurance that protects against 
catastrophic losses provides an effective risk management tool, 
especially for beginning farmers. When I began farming, the 
availability of crop insurance was important in securing 
operating capital, and this is definitely a factor for many 
others in my situation. It does not and should not guarantee a 
profit, but establishing a known flow of revenue and mitigating 
severe risk factors are invaluable for acquiring operating 
loans.
    I would also urge the Committee to maintain the public-
private partnership with crop insurance companies, rather than 
moving the servicing of insurance to the Farm Service Agency. 
The time and resources required to effectively manage insurance 
policies would be too great to add on to the responsibilities 
already taken on by the FSA.
    In recent years, we've seen multiple hail events during the 
growing season, and even with a staff dedicated solely to 
adjusting and processing claims, it can take several months to 
sort out all the details. Piling these responsibilities on the 
FSA office would harm both the insurance program and the 
management of FSA's current functions. Our insurance agents and 
adjustors do an outstanding job of managing this complex and 
time-sensitive process, and it would severely weaken the entire 
program to take it out of their hands.
    Any safety net provisions, conservation programs, insurance 
programs, or any other agricultural aspects of the farm bill 
should have the following aims: To allow farmers flexibility to 
respond to market signals; to be as streamlined as possible; 
and to be easily explained to the public.
    Creating incentives for farmers to make decisions based on 
government payout rather than what the market is dictating is 
the last thing any of us want to see, as it will undermine the 
whole program and distort the market, as well as discourage 
innovation and production. A safety net should protect from 
catastrophic loss, but not guarantee profit for participants.
    Streamlined programs will reduce the cost to maintain and 
will provide simple, more easily understood options for 
producers. This is obviously a challenging goal, with the 
myriad agricultural products represented in the farm bill, but 
one that's worth the payoff. It's likely that budget cuts will 
force this to happen in some manner. My hope is that it will be 
done in a way to maximize efficiency, rather than just to cut 
costs.
    Finally, it's imperative that this policy be easily 
explained and defended to the public. Agriculture is on display 
and under the microscope like never before and there will be 
much public scrutiny of any government spending in this arena. 
We're in a time where the 24 hour news cycle has been shortened 
to the 140 character cycle. Misinformation and 
misunderstandings, like we saw with the recent pink slime 
debacle, can have tremendous impacts in a very short amount of 
time. It's critical that the aims and motivations of this 
legislation be presented in a way that makes sense to an ever-
more interested public.
    This legislation is being crafted at a unique time of 
record farm prosperity and record deficits, and with critical 
elections looming. It's my hope that a bill that meets the 
needs of producers and fits in the current environment of 
budgetary cutbacks can be passed yet in 2012.
    Thank you for your time, the opportunity to provide input, 
and I will be open to questions.
    [The prepared statement of Mr. Hunnicutt follows:]

  Prepared Statement of Zachary Hunnicutt, Corn, Soybean, and Popcorn 
                          Producer, Aurora, NE
    I would like to thank Chairman Lucas and the House Agricultural 
Committee for the opportunity to discuss the upcoming farm bill and its 
impact on my operation and the general farm economy.
    My name is Zach Hunnicutt, and I am a fifth-generation farmer in 
Hamilton County Nebraska, raising irrigated corn, soybeans, and popcorn 
with my father and brother. I have been farming full time for 5 years.
    While the country has been mired in a protracted recession, 
constantly looking for evidence of green shoots, the agriculture sector 
of the economy has flourished. Given the recent prosperity, and the 
historic Federal budget deficit, the farm bill will be a target for 
cuts, and I understand that the burden of reduced budgets will be 
shared across the board. However, I would encourage the Committee to 
ensure that farmers and ranchers are not penalized for this success by 
bearing a greater share of the cuts, to provide an environment that 
allows flexibility for farmers to respond to market signals, to 
maintain healthy programs that have proven successful, and to take care 
in crafting the bill to make it as easily explained to the public as it 
can be.
    Federal Crop Insurance has been a valuable tool for our operation, 
and I would strongly oppose making any cuts to this program. The 
ability to purchase insurance that protects against catastrophic losses 
provides an effective risk management tool, especially for beginning 
farmers. When I began farming, the availability of crop insurance was 
important in securing operating capital, and this is definitely a 
factor for many other beginning farmers. It does not--and should not--
guarantee a profit, but establishing a known flow of revenue and 
mitigating severe risk factors are invaluable for acquiring operating 
loans.
    I would also urge the Committee to maintain the public-private 
partnership with crop insurance companies, rather than moving the 
servicing of insurance to the Farm Service Agency. The time and 
resources required to effectively manage insurance policies would be 
too great to add on to the responsibilities already taken on by the 
FSA. In recent years we have seen multiple hail events during the 
growing season, and even with a staff dedicated solely to adjusting and 
processing claims it can take several months to sort out all of the 
details. Piling these responsibilities on the FSA office would harm 
both the insurance program and the management of FSA's current 
functions. Our insurance agents and adjustors do an outstanding job of 
managing this complex and time-sensitive process, and it would severely 
weaken the entire program to take it out of their hands.
    Any safety net provisions, conservation programs, insurance 
programs, or any other agricultural aspects of the farm bill should 
have the following aims: to allow farmers flexibility to respond to 
market signals, to be as streamlined as possible, and to be easily 
explained to the public.
    Creating incentives for farmers to make decisions based on 
government payout rather than what the market is dictating is the last 
thing we want to see, as it will undermine the whole program and 
distort the market. Innovation would be discouraged in this type of 
setup as well. Safety nets should protect from catastrophic loss, but 
not guarantee profit for participants.
    Streamlining programs will reduce the costs of maintaining them and 
provide simple, more easily understood options to producers. This is 
obviously a challenging goal with the myriad agricultural products 
represented in the farm bill, but one that is worth the payoff. It is 
likely that budget cuts will force this to happen in some manner, and 
my hope is that it will be done in a way to maximize efficiency rather 
than just to cut costs.
    And finally, it is imperative that this policy be easily explained 
to the public. Agriculture is on display and under the microscope like 
never before, and there will be much public scrutiny of any government 
spending in this arena. In a time where the 24 hour news cycle has been 
shortened even further to the 140 character cycle, misinformation and 
misunderstandings can have tremendous impacts in a very short amount of 
time. It is critical that the aims and motivations of this legislation 
be presented in a way that makes sense to an ever-more interested 
public.
    This legislation is being crafted at a unique time of record farm 
prosperity and record deficits, with critical elections looming. It is 
my hope that a bill that meets the needs of producers and fits in the 
current environment of budgetary cutbacks can be passed yet in 2012. 
Thank you for your time and the opportunity to provide input in the 
development of the farm bill.

    The Chairman. Thank you, Mr. Hunnicutt.
    I now recognize myself for 5 minutes.
    Mr. Anderson, you mentioned that you grow wheat in addition 
to cotton, so set your cotton hat to the side for just a 
moment. What would be the most effective safety net for your 
wheat crop?
    Mr. Anderson. Mr. Chairman, I apologize for that wheat 
getting in there. I am not a for-profit wheat producer. I grow 
cotton. I grow----
    The Chairman. That's what my wife accuses me of being.
    Mr. Anderson. The wheat that I grow is for conservation 
tillage, for rotation purposes, and I'm going to have to punt 
on that question on wheat production for profit. I'm primarily 
a cotton producer. I do grow grain sorghum for a rotation crop.
    The Chairman. Fair enough. In our discussions last fall, we 
looked at requiring RMA to separate irrigated and non-irrigated 
policies by practice, both on an enterprise unit and a crop-by-
crop basis. What would that option--would that option benefit 
your farm?
    Mr. Anderson. It would help me greatly. I have two circles 
under irrigation and 30 acres of drip, 4,000 acres of dryland, 
and we used enterprise units on my farm last year. We were so 
dry at planting time, with the limited water that I had, I 
never turned my circles on. I certified them all dryland. Had I 
been forced to--had I gotten the crop up to a good start and 
been forced to irrigate it, it would have cost my whole farming 
operation about $100,000; so if we could separate those from 
dryland and irrigated by practice, I think it would vastly 
improve the choice for producers that have both.
    The Chairman. One more question. In your written testimony, 
you talk about the heavily subsidized foreign competition. Can 
you describe some of your competitors, what they're doing?
    Mr. Anderson. The cotton industry, Mr. Chairman, has been 
concerned for some time about internal policies in China and in 
India, and I guess a good case in point here of late would be 
India's prohibition on exporting cotton in from their country; 
and the subsidies, the per pound subsidies that China's growers 
have been benefitting from, I think currently, the subsidy to 
cotton in China is about $1.23 a pound; so access to their 
markets and the manipulation in their internal policies that 
they can regulate stocks, and consequently, stocks around the 
world, and how they put those stocks back on the market vastly 
affects what we do.
    The Chairman. Do you believe the United States Trade 
Representative is doing anything to challenge any of these 
issues; challenge them, so to speak? You can answer that 
carefully. I understand that.
    Mr. Anderson. I know that our Trade Representatives have 
this information before them, and I'm not sure how obvious the 
response has been to that information. I do know that they've 
been made aware by the cotton industry of some of the 
challenges that we have in getting our products into those 
markets.
    The Chairman. Thank you. Mr. Harper, you mentioned in your 
testimony, I think your written testimony, H.R. 3798, the Egg 
Products Inspection Acts Amendments of 2012, which was recently 
introduced. The legislation, for some of the folks here with us 
today, would impose specific production standards for egg 
farmers. It would define physical cage size dimensions, air 
quality conditions, labeling requirements and other production 
practices in a Federal law. As a cattle producer, do you 
believe it's appropriate to impose Federal standards on 
livestock producers that are the result of a, shall we say in a 
polite way, a negotiated agreement between a trade group and an 
animal rights group?
    Mr. Harper. Well, thank you, Mr. Chairman, for the 
question. This legislation is truly a concern for me as a 
livestock producer. I think sometimes we're tempted to go down 
a path that seems to maybe, at the time, seem like a 
comfortable solution to a near-term problem. The problem with 
adopting production practices, I think we as producers out in 
the country are the best at determining what production 
practices are best for our livestock and are best for 
efficiencies and best for producing the most amount of product 
we can. I think that going into that area of adopting those 
practices--probably the biggest concern for me is I think it 
limits innovation in the future.
    I think it--you know, we're constantly striving to improve 
our production practices and that's obviously with--I'll just 
state, for example, the amount. You know, we have about half as 
many cows as we did back in the 1950s and 1960s and we're 
producing as much beef as we were back then, and that's just a 
great example of the innovation that industries do on their 
own. I think to get tied into particular production practices 
is really a concern for livestock producers.
    The Chairman. And to steal the question, if you've got a 
problem, is it fair to share it with all your friends, too, so 
to speak? Yes, I understand where you're coming from.
    Mr. Harper. Yes.
    The Chairman. Mr. Hodgson, the Committee will take a 
serious look at lowering the acreage cap for the Conservation 
Reserve Program, and also in the process of deciding the 
purpose of the program in the future. Given the increased 
demand for grain, because there is a variety of uses we didn't 
have for it 15 years ago out there, high crop prices, 
increasing land values, what do you see as the future role of 
the Conservation Reserve Program, CRP? And along with that, 
what changes would you like to see, if any, in the CRP program?
    Mr. Hodgson. I would not do away with CRP. I'm not 
advocating that, and really, I say I think some of this could 
go back into working lands, and I think that's going to happen 
anyway. As you say, the higher price of land and higher price 
of grain, I think people are going to make the choice, if the 
government doesn't raise their rental rates, to say we can make 
more money producing than preserving, conserving, so you know, 
the acreage caps, I know they're talking about changing. I 
don't know if that's a dramatic difference. I think a lot of 
this, it's going to come down to what will the government do 
with the rental rates, and if those aren't changed 
dramatically, I think obviously, a lot of that land's going to 
come back into production.
    The Chairman. A lot of my neighbors in Oklahoma say that if 
we're going to put 45, 50 percent of the corn crop through the 
ethanol cookers, depending on what crop yields are and weather 
conditions are in any given year, that from a livestock 
perspective, from an animal and food, human food perspective, 
we have to have more product. There is a driving effort in some 
areas out there, not in opposition to renewable fuel, not in 
opposition to ethanol. But, to simply say if the Federal 
Government is going to mandate 13 billion gallons of ethanol, 
we've got to have more, because the classic retort to me this 
last winter was a certain amount of those 20 percent pellets 
that were being bought by cow/calf operators were basically 
made out of crud out of the bottom of the bins. We have to have 
more feed grain, so CRP, in the tough budget circumstances 
we're in, and the other issues we're dealing with, is just one 
of those things on the table.
    I now turn to the gentleman from Texas for his 5 minutes. 
Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman, and Woody, I 
appreciate those kind words. I just wish my mom was in the 
audience. She'd have been really happy. Thank you very much.
    Woody, you briefly mentioned the STAX program and the 
relatively difficult effort within the cotton group at large to 
come up with that program. Could you give us some sense, are 
all producers just ecstatic with this or are they just, are 
some folks on the other side looking at it and saying, ``Gosh, 
you're trying to cut a fatter hog than everybody else.'' Can 
you give us some perspective on how STAX came together?
    Mr. Anderson. I don't think any way you look at it, Mr. 
Conaway, it would be cutting a fat hog. It has been a very 
difficult process to reach consensus in transforming cotton's 
policy over the last 12 to 18 months. The STAX product is a 
result of a hard look at the WTO findings and what might best 
get cotton off the front page, if you will, and how we deal 
with limited resources going into this farm bill under those 
budget constraints that I know you're well aware of.
    We have consensus within the cotton industry. We had--we've 
held--we've actually, in the process within the council, have a 
farm policy task force as an area, a council-wide group. We 
have an American Cotton Producer farm policy task force, and 
you actually have the Chairman of both of those groups in your 
district. It's not been an easy process, but we have reached 
consensus. The growers across the belt are fully behind the 
STAX proposal.
    It doesn't--the diversity we--even within the cotton 
industry, one size doesn't fit all. That's why it's important 
that STAX in some areas will allow producers to insure revenue 
from 70 to 90 percent, where they may not be carrying a 65 or 
70 percent underlying buy-up coverage. In our area, obviously, 
we're going to carry the buy-up coverage and look at the 
revenue side of it, depending on what the price selection and 
crop insurance is that year.
    Mr. Conaway. In your testimony, you mentioned there was a 
combination of STAX and modified marketing loan program. Can 
you talk to us about how the marketing loan program works in 
your enterprise?
    Mr. Anderson. The marketing loan in my enterprise is a 
little different. I don't market my own cotton. I market it 
through a co-op pool through the PCCA in Lubbock, but it allows 
the pool and producers, too, to level out the payments off that 
crop throughout the marketing year. It allows them to have an 
orderly marketing of the crop and not just hold it and dump it 
on the market at one point in time. It also provides the 
security to the financial institutions and our bankers that 
allow them to see that there is going to be a bottom price on 
their loan.
    Mr. Conaway. All ten of the witnesses have asked for 
choices; have asked for options; have asked for not to have a 
one-size-fits-all program, but we also have immense criticism 
of the complication of the existing safety net, ACRE, SURE, all 
those kinds of things. One-size-fits-all has a certain elegant 
simplicity to it, but nobody wants that.
    Anybody on the panel want to speak to us? Do you 
realistically think that we can craft something that will do 
all those things where you get all those choices, be 
explainable to your banker and to the financiers and others, 
and avoid the criticism of being too complicated for producers 
to comply with? Any of the panel want to take a shot at that?
    Mr. Anderson. Let me take the first shot, Mr. Conaway. At 
the risk of stepping on some toes, and I certainly don't intend 
to, not in this room, in 1996, we had a simple farm bill and it 
was purported to be a simple farm bill, Freedom to Farm, and it 
was just going to be a straight payment kind of program and it 
did not fit all of us, and ultimately, we had to go back in 
1980 and look at the DCP kind of program, or 1985, the DCP 
program that we've enjoyed for the last three farm bills.
    The STAX part of the proposal is a crop insurance-based 
program, and it shouldn't be too difficult to explain as we 
develop it in the buy-up policy and in the gap coverage policy 
in STAX.
    Mr. Conaway. Anyone else want to take a shot at that?
    Mr. Hodgson?
    Mr. Hodgson. I do think we need flex--options. You know, I 
heard somebody say we actually get paid for making management 
decisions, so different programs for different areas of the 
country. You know, people in the next county farm differently 
than I do. In the next state or next area, obviously they've 
got to have some difference in programs.
    Mr. Conaway. So your consensus would be, even if it does 
complicate your business, you would prefer choices and options, 
rather than one-size-fits-all programs?
    Mr. Hodgson. I would, yes.
    Mr. Conaway. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. We turn to 
our host from the great State of Kansas, Congressman Huelskamp, 
for 5 minutes.
    Mr. Huelskamp. Thank you, Mr. Chairman. Same questions, I 
guess. First, Mr. Harper, you're the cow/calf producer here. 
The others kind of do a little bit of it, and you made some 
reference in testimony about the livestock title. I understand 
that as well. There are other things in the farm bill, I 
presume, that impact the bottom line for beef producers. We are 
in cattle country here, and can you tell me what one or two 
things in the farm bill would create the most difficulty for 
the livestock industry and which you would be most concerned 
about?
    Mr. Harper. Thank you for the question, Mr. Huelskamp. I 
think a couple things. You know, the conservation programs are 
a very important part to livestock producers as well as crop 
producers. I think programs like EQIP have been very good for 
implementing conservation practices in the livestock industry. 
Things such as pasture improvements by distribution of water, 
better distribution of water, cross fencing and things like 
that, EQIP funding has been very important as far as getting 
certain operations under compliance with the regulatory issues; 
things along those lines.
    You know, one thing that has been a concern, and it's been 
kind of talked about quite a bit, is a possible proposed ban on 
packer ownership. I think that's a big concern for livestock 
producers like myself. In these volatile times, I'm sure there 
have been volatile times in the past, but in my term since I 
started farming after college here about 20 years ago, it's 
certainly the most volatile times that I've seen. The way we 
manage that volatility is probably as unique as our individual 
farming operations. When you take an opportunity away from 
livestock producers to market their livestock by banning the 
particular ownership or narrowing the time frame that a 
particular sector can own cattle, I think that's a big concern 
for us. We'd just like to have the freedom to market livestock 
the best way we see fit, and we truly feel like the livestock 
producers are the best to do that.
    Mr. Huelskamp. Mr. Hunnicutt, you mentioned you had a 
couple kids here that you have. I've got my 10 year old here, 
so I want to ask you about the Department of Labor regulations, 
whether you've heard about that, dealing with child labor. He's 
listening closely to your answer. Tell me your thoughts on 
that.
    Mr. Hunnicutt. Well, we're getting into planting season. 
We've been doing some field work and I've had my 4 year old son 
out there with me and before he starts playing with my iPad 
after a couple hours out there, he's asking all kinds of 
questions and I'm telling him why I'm out there strip tilling, 
why it's good for the soil, what's going on, and he's up in the 
big tractor in a closed cab, buckled in. I mean, he's safer 
there than he is in our car going down the highway, and because 
I farm in partnership with my dad and brother, I wouldn't be 
able to do that if these regulations pass.
    I mean, just the--I understand some of the ideas behind it, 
the idea of maybe there's some labor out there that's being 
treated badly, but this goes so far beyond. I mean, this is a 
sledgehammer to kill a mosquito kind of idea, just the loss of 
knowledge that we'd have to pass on to kids just from them 
working on the farm. You know, I got my--my Social Security 
savings goes back to when I was 5 years old walking soybean 
fields, you know. That kind of thing that would be gone. I 
mean, it would be--that would harm our farm economy more than 
about anything else that could happen.
    Mr. Huelskamp. I have a question on bankers and credit, Mr. 
Hodgson. Can you describe any changes in the credit markets 
with some of the regulations out of Washington, or as we do 
have a credit title in the farm bill, can you discuss any 
suggestion of what we need to do within that arena?
    Mr. Hodgson. I guess I'm not real familiar with what's 
going on there. I guess I wouldn't--I don't know.
    Mr. Huelskamp. Mr. Anderson or Tom, do you have any 
comments on those?
    Mr. Anderson. I would, actually. I serve on the loan 
committee on a little small bank in my community, and 
regulations have really tightened up. Like Mr. Chairman, 
Chairman Lucas said earlier, we have to have in the file the 
insurance product. We have to have cash flow stated. We have a 
file for every producer.
    The Chairman. Along with a tax return.
    Mr. Anderson. Along with a tax return, yes, sir. 
Regulations have really tightened up, particularly on the small 
community banks. The larger banks that have the staff to handle 
it, I think it's probably not been nearly the burden on, but 
the small community rural banks, it's really been a problem 
for, and our producers, too.
    The Chairman. The gentleman yields back his time. I would 
note to my colleagues on the Committee, one of the things I 
learned in my stewardship under then Chairman Roberts at the 
House Agriculture Committee a few years ago, it's good to be 
Chairman. Therefore, I'm going to ask one last question in my 
role as Chairman.
    Mr. Hunnicutt, you said the safety net should protect from 
catastrophic loss. Can you define what a catastrophic loss 
would look like in your operation and the best way you think 
protection against that kind of loss could be addressed?
    Mr. Hunnicutt. Well, up to this point in time I've been 
farming, I fortunately haven't had to deal with that sort of 
situation.
    The Chairman. Lucky man.
    Mr. Hunnicutt. I have a lot more years coming, hopefully.
    The Chairman. Yes.
    Mr. Hunnicutt. You know, we have a lot of storms roll 
through our part of Nebraska. You know, we--drought isn't such 
a--that isn't a concern in our area because we're irrigated, so 
we're pretty well covered with that. I mean, we could be pretty 
well devastated with a hailstorm. I mean, you can get pictures 
from storms, luckily not around us last year, but you couldn't 
tell that there was corn out there. It looked like it was 
winter, covered with all the hail. You know, when--if we had 
half of our acres get hit by that and we're not able to insure 
that properly, we're out that cost of production there. I mean, 
that would be--that sort of thing would hit us pretty hard. I 
mean, I'm--when you talk about catastrophic loss, you're 
looking more at things that are outside of our control, like 
the weather and that sort of thing, not just economic changes.
    The Chairman. One last question. You, of course, say that 
the safety net should protect against that catastrophic loss 
and not guarantee profit for participants. Have you had an 
opportunity to review any of the farm bill proposals that have 
been offered by a variety of the groups, and if so, do you have 
any concerns about that any of these would, ``try to guarantee 
a profit?''
    Mr. Hunnicutt. I haven't had the opportunity to review any 
of the proposals yet at this point. We've looked at those in 
the upcoming months, but I think there might be a tendency by 
some out there to want to kind of promise the Moon or look to 
make sure we can take care of things. I would look at it more 
as, I need to manage my business and if there is a bad loss or 
a repeated loss over several years, that's the sort of 
situation where you look at a safety net; not just to cover 
general losses that would come in the course of production.
    The Chairman. Absolutely. Absolutely. I believe all the 
time has expired for questions. As is the custom when we're in 
the home district of one of our Agriculture Committee Members, 
before we adjourn, I would invite Mr. Huelskamp to make any 
closing comments he might have.
    Mr. Huelskamp. Well, thank you, Mr. Chairman. A fascinating 
number of witnesses and the testimony thereof, and real 
interesting, and I might say for the audience, in looking 
across here, about the diversity. We see folks here with five 
or six or two or three or four different crops. Other parts of 
the country, it's not quite that way, but it makes sense and 
shows how difficult it is to write a farm bill with that many 
crops in just this area, and we have the rest of the country.
    I certainly appreciate the Chairman and my other colleague, 
Mr. Conaway, for joining us here and I want to thank the 
Committee staff. It is a long ways from Washington. I actually 
like it that way, Mr. Chairman, but it is a long ways to get 
here, and I do appreciate you coming here and listening.
    This is the fourth and final field hearing, and I just want 
to say on the Chairman's behalf, I just wanted to get out, 
honestly, get out of Washington, D.C., and hear what real 
producers have to say before we get started on the farm bill. I 
thank you for accepting the invitation and being here today. I 
know it was quite a trek for many here, and I thank you.
    The Chairman. Absolutely, Tim, and I want to thank you all 
again for being here today also. I think we've heard a lot of 
truly valuable input today. I'd especially like to thank our 
witnesses for their time.
    As I said when we started, there are some challenges that 
vary by region. We need to tailor our farm policy to fit those 
unique requirements. I think it's true that farmers and 
ranchers across the country share many of the same experiences. 
Whether you're raising corn in Kansas, wheat in Oklahoma, 
cotton in Texas, soybeans in Nebraska, sorghum in Colorado, we 
face many similar challenges and your input is an important 
part of the puzzle as we put together this farm bill, a farm 
bill that will work for all farmers in all regions of the 
country.
    Once again, I would like to remind everyone listening to 
our hearing today here in the room also that the House 
Agriculture Committee has a website where you can learn more 
about the 2012 Farm Bill. In addition, you may submit comments 
to be considered a part of the Committee's farm bill hearing 
record. Your comments must be submitted using the website 
before May 20, 2010. That website is agriculture.house.gov/
farmbill.
    Your perspective is vital to this process and I thank all 
of you for participating today. Under the rules of the 
Committee, the record of today's hearing will remain open for 
30 calendar days, to receive additional material and 
supplemental written responses from the witnesses to any 
question posed by a Member.
    This hearing of the Committee on Agriculture is adjourned.
    [Whereupon, at 10:51 a.m. (CDT), the Committee was 
adjourned.]
                            APPENDIX



   Compilation of Responses to Farm Bill Feedback Questionnaire, 2012

                              ----------                              


                             NOVEMBER 2012

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.

                            PREFACE

    Prior to writing a new farm bill, the House Committee on 
Agriculture traditionally embarks on a series of field hearings 
throughout the United States. The purpose of these hearings is 
to gather comments and information from those whose livelihoods 
are most affected by the policy that the farm bill creates. For 
those who did not get a chance to testify at the field 
hearings, the Agriculture Committee created an online 
questionnaire through which any interested party could submit 
constructive suggestions for the upcoming farm bill. The 
responses are presented here, in alphabetical order, by 
individual name.
    The Committee would like to thank all those who 
participated in this process. The information presented in this 
compilation will be helpful in the formulation of the next farm 
bill. 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          Comment of Ms. Maya
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Columbus, NM
    Occupation: Retired--Artist--Alternative Living
    Comment: Our organization uses EM (effective microorganisms) from 
Teraganix--a digestive microbe developed in Japan by Dr. Higa. We have 
one of the best wastewater lagoons in the state of NM. I use EM in 
compost, on plants. I use no pesticides. I worked with USDA in Las 
Cruces and was appalled at their support of pesticides and poisons 
rather than leading edge alternative safe methods. Our current methods 
are killing the planet, the soil, the air, the water.
                                 ______
                                 
                       Comment of Christina Abate
    Date Submitted: Friday, May 11, 2012, 3:35 a.m.
    City, State: Chester, NY
    Occupation: Engineer
    Comment: More localized farming and perennial crops please. Also, 
please aid in protecting farmers against the biofuel industry and 
international agribusinesses such as Monsanto or Cargill.
                                 ______
                                 
                        Comment of Debra Abbott
    Date Submitted: Friday, May 18, 2012, 6:06 p.m.
    City, State: Chico, CA
    Occupation: School Garden Educator
    Comment:

    1. Increase subsidies for those who are growing healthy fruits and 
        vegetables for the citizens of this country. For too long, the 
        corn, soybean and wheat agribusinesses have been the main 
        recipients of subsidies, and as a result, there has been a 
        dramatic increase in obesity, diabetes and heart disease in 
        this country.

    2. Nutrition programs that provide food for those who are most at 
        risk of nutritional deficiencies--children, the elderly and the 
        disabled--must be fully funded.

    3. Fully fund those programs that support socially disadvantaged 
        farmers and sustainable food production systems.

    4. Fund studies that research the effects of agricultural chemicals 
        on the health of the population

    Thank you,

Debra Abbott.
                                 ______
                                 
                      Comment of Barbara Abersold
    Date Submitted: Saturday, May 19, 2012, 12:09 a.m.
    City, State: Boise, ID
    Occupation: Retired Teacher
    Comment: I would like the subsidies to stop for large industrial 
farms. I want to see support for local organic growers. I am against 
GMO crops in general and dislike the wide spread use and overuse of 
pesticides that are poisoning our water supply and us.
                                 ______
                                 
                        Comment of Santos Abeyta
    Date Submitted: Monday, April 16, 2012, 9:12 a.m.
    City, State: Albuquerque, NM.
    Occupation: Catholic Deacon/Spiritual Advisor for St. Vincent de 
Paul Society
    Comment: Just speaking for food needs in the Albuquerque 
metropolitan area: Holy Family Parish is currently serving an average 
of 300-350 families each month with a food box.
    All of the food distributed comes to us through the Roadrunner Food 
Bank (RRFB). We have very little food in the form of USDA commodities 
this past year. We have had to depend on free fruits and vegetables 
from RRFB to supplement the food boxes.
    It is imperative that our U.S. Government increase the USDA 
commodities, to at least previous years' levels, so that the 
unemployed, low wage and people on SSI and the elderly on fixed incomes 
have an adequate level of food supplies.
    Thank You for your consideration. There should be no reason why any 
person living in the USA should go hungry.
                                 ______
                                 
                      Comment of Jon B. Abrahamson
    Date Submitted: Friday, May 18, 2012, 12:26 p.m.
    City, State: Waconia, MN.
    Producer/Non-producer: Producer
    Type: Vegetables.
    Size: Less than 50 acres.
    Comment: I have a right to have pure food and water. Not a bunch of 
so called food with chemicals, hormones, vaccines, antibiotics, or 
fetal flavor enhancers in it!
    You Are What You Eat!
    BTW: I was leading the charge against Monsanto's Ethoxiquin that 
was killing our pets some 20 years ago! Same science then as today.
    Thank you,

Jon B. Abrahamson,
Waconia MN.
                                 ______
                                 
                         Comment of Beth Abrams
    Date Submitted: Wednesday, April 18, 2012, 1:03 p.m.
    City, State: San Francisco, CA.
    Occupation: Nonprofit Director
    Comment: Please do not cut or reduce SNAP, which is a critical 
lifeline to millions of Americans. Half of food stamps recipients are 
children. I direct a food program in San Francisco that feeds 2,000 
people a week and are strained to feed to people that we serve. In 
fact, we are in danger of closing down due o lack of funds. Cutting 
food stamps strains all the smaller safety nets to the breaking point. 
The bottom line is that if you cut food stamps, mass starvation will 
result, in the richest country in the world. This goes against the 
ethics of this country, every major religion, and the values that 
determine a society that claims to uphold human decency and basic human 
rights. Do not cut SNAP!
                                 ______
                                 
                        Comment of Bonnie Acker
    Date Submitted: Wednesday, May 16, 2012, 6:02 a.m.
    City, State: Burlington, VT
    Occupation: Artist and Farm 2 School Volunteer.
    Comment: Around Vermont, we have been building an amazing Farm 2 
School movement where food-service staff, farmers, students, teachers 
and others from the community are getting wonderful local foods into 
our school cafeterias. There is no greater happiness than to see 
children--from all walks of life--enjoying delicious, nutritious meals 
and excited about growing food. At the Integrated Arts Academy here in 
Burlington--where the children speak 23 languages other than English--
all 300 students helped plant 300 raspberry seedlings last week. They 
cheerfully shared shovels, laughed as they discovered worms, and 
dreamed about the harvests to come. They were so proud of their work.
    May all people in this country be granted enough nutritious and 
delicious food to live healthy and happy lives. I ask all of you to 
fund food-assistance programs to an even greater extent than ever 
before. People here in Burlington, Vermont and in so many other 
communities will be so uplifted. Thank you so very much.
                                 ______
                                 
                       Comment of Sheila J. Acker
    Date Submitted: Monday, March 26, 2012, 12:28 p.m.
    City, State: Rock Island, IL
    Occupation: Farm Owner/Rent Acreage.
    Comment: Please ensure our next farm bill encourages organic 
farming and enables both small and large farms to attain this status 
without undue costs.
    Please also ensure standard farming does not affect organic farming 
(cross contamination).
    Our children deserve the health that comes with non-genetically 
engineered food. Scientific studies have proven GMO's alter our genes 
until we can no longer reproduce. Please do not do this to the next 
generation.
            Sincerely and thank you,

Sheila J. Acker.
                                 ______
                                 
                        Comment of Sophie Ackoff
    Date Submitted: Sunday, May 20, 2012, 11:41 p.m.
    City, State: Cold Spring, NY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: 50-150 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a young farmer 
currently farming in the Hudson River Valley. I know that this country 
desperately needs young farmers and I have been proud of the programs 
such as the Beginning Farmer and Rancher Development Program that help 
the next generation of growers gain the essential skills necessary to 
farm. Glynwood, the farm at which I currently work, is launching a 
farmer incubator program thanks to BFRDP funding. This program is going 
to give many young farmers an opportunity for land and resources. These 
resources are very difficult to obtain on our own! I ask that the 
Committee endorse all of the provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country. 
        Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Sophie Ackoff.
                                 ______
                                 
                    Comment of Roberta Actor-Thomas
    Date Submitted: Friday, May 18, 2012, 6:22 p.m.
    City, State: Lakeport, CA
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: Real reform is needed. The Earl Butz policy of ``get big 
or get out'' has devastated American small farms and rural communities. 
We struggle to create local markets for local products from small farms 
but face dumping by the big beneficiaries of the farm bill. Last I 
heard, the local food pantries are getting commodities at 10? per 
pound. How about a subsidy for local growers of healthy meat and 
poultry, fruits and vegetables instead of dumping diabetes-causing 
trash food on our rural communities?
                                 ______
                                 
                       Comment of Richard Acuzzo
    Date Submitted: Friday, May 18, 2012, 11:18 a.m.
    City, State: Chico, CA
    Occupation: Unemployed
    Comment: We need healthy food that is raised and grown properly. We 
need small farmers to be helped with subsidies and subsidies for large 
farmers to be reduced or eliminated. Raw Milk and Raw Milk products 
must be legalized.
                                 ______
                                 
                        Comment of Audrey Adams
    Date Submitted: Friday, May 18, 2012, 3:54 p.m.
    City, State: Renton, WA
    Occupation: Mother
    Comment: As a mother I am very concerned about the direction of 
unhealthful practices of food production and the Big-Ag protectionism 
bias from Federal government. Small farmers, especially those producing 
organic foods, need the MOST protections rather than the least, as it 
now stands. Taxpayers do not want to subsidize the least healthy foods, 
such as corn and soy! Subsidies should be reserved for small organic 
farming only.
    Specifically, I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Brenda Adams
    Date Submitted: Friday, May 18, 2012, 12:48 p.m.
    City, State: Minneapolis, MN
    Occupation: Mediator, Communication Teacher
    Comment: I am writing to request that your consideration of the 
consequences of this act for the next seven generations.
    In doing so, you will see the wisdom of:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    To deviate from the progress we are making with local, sustainable, 
organic foods will bring further harm to people and the Earth.
    Profits do not drive sustainable business. Profits are the outcome 
of doing work in harmony with human and Mother Nature. Non-sustainable 
business harms humans and Mother Nature.
    I grew up on a farm. That farmland is now a smothered with 
chemicals. I eat organic food. I will never support agribusiness as it 
is now. I teach others the hazards of chemicals and the benefits of 
wholesome organic foods.
    Our taxes need to support people's health and well-being.
    The green revolution is over. The rest of the world has rejected 
GMO foods.
    We have a responsibility to work with nature. While at times 
harder, it is also more fulfilling, rewarding and, of course, it is 
sustainable.
    We must work together to ensure farms and farmers produce healthy 
food that generate sustainable profits over time, rather than `gross' 
profits from unhealthy `food stuffs' in the short term.
    This is the way of all of us, all business, the future to be 
healthy.
    Beginning from the ground up is the way for us to work that works 
for everyone on the planet together.
            Most sincerely,

Brenda Adams.
                                 ______
                                 
                       Comment of Constance Adams
    Date Submitted: Saturday, May 19, 2012, 2:25 a.m.
    City, State: The Villages, FL
    Occupation: Retail
    Comment: It's very important to me as a consumer to count on 
products grown in the USA or elsewhere not to be genetically modified 
or if they are then it should be mandatory to have labels stating that 
it is put on it. I feel that with what I have read regarding Monsanto 
that it is a big bully & also money hungry. I for one detest being used 
as a guinea pig by anyone. Please help our local farmers be able to 
grow what they want with the seeds they so choose without Monsanto 
locking them in to having to purchase their seeds every time. Also as a 
consumer who purchases organic items I don't want Monsanto's seeds 
cross breeding with that either. Please help our country be the best 
producer of great produce! Big business is Not always the best & 
farmers as well as consumers should deserve a fair choice in that to as 
well as better selections! It might not matter to some but it does 
matter to me & my family/friends too.
    Thank you kindly for your time.
            Sincerely,

Constance Adams.
                                 ______
                                 
                         Comment of Glory Adams
    Date Submitted: Friday, May 18, 2012, 11:06 p.m.
    City, State: Eau Claire, WI
    Occupation: Retired
    Comment: Please write a bill that supports small, family farms; not 
large corporate farms or confined animal operations. Include support 
for programs that support the poor to the extent that they now do--
nothing less. Please do not include any support for out-of-country 
farmers in Brazil or anywhere else. This support is for only American 
farmers and American citizens. In no way offer any kind of support to 
corporate conglomerates such as Monsanto, those spewing pesticides/
herbicides, or GM seeds.
                                 ______
                                 
                         Comment of Joyce Adams
    Date Submitted: Sunday, May 20, 2012, 9:12 a.m.
    City, State: Boynton Beach, FL
    Occupation: Teacher
    Comment: I have allergies to sulfate and sulfites. It is important 
that I have healthy food. Please do what it takes to keep chemicals off 
of our food. I would like all children to have access to healthy food. 
Thank you!
                                 ______
                                 
                        Comment of Judith Adams
    Date Submitted: Friday, May 18, 2012, 2:04 p.m.
    City, State: Seattle, WA
    Occupation: Retired
    Comment: Look around you . . . Americans are in a health crisis. We 
are one of the unhealthiest nations on this planet, with so many 
resources at out finger tips and yet we continue to poison ourselves 
and our children. The facts bear this out . . . consumers and 
scientists are finally in agreement that the way and what we eat 
determines our health. Young girls today are facing a crisis that no 
one talks about. They are maturing at an alarmingly young age. Tumors 
of the reproductive system are on the rise. Girls are losing their 
ability to reproduce due to these rapidly growing tumors. And where do 
they come from? Growth hormones in animals that we eat and milk that we 
drink; chemical toxins in our food that cause synthetic estrogen to 
grow in our bodies. Stop this madness! Support organic farming and 
ranching practices! Stop letting the big agricultural machine run the 
show. Show that you care for the people of America.
                                 ______
                                 
                         Comment of Lisa Adams
    Date Submitted: Friday, May 18, 2012, 2:47 p.m.
    City, State: Lake Pleasant, MA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: We are new farmers. We just bought a farm because we were 
tired of watching local farm land be sold and because my daughter and I 
have MANY food sensitivities. I have to meticulous about reading 
labels.
    I think it's a disgrace that for my tiny farm I have to make my jam 
in a commercial kitchen so that I can sell it on a small local farm 
stand, but Monsanto gets a pass on responsibility.
    I can't be a responsible parent and can't take proper care of us 
both if I'm reading a label that is missing information.
    Monsanto just keeps taking. Now they need to join the rest of us. 
Down with Monsanto and the Bullying.
                                 ______
                                 
                        Comment of Marina Adams
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: New York, NY
    Occupation: Artist
    Comment: Organic Farming will help solve many of our crises, 
including climate change (global warming), health (cancer and many 
illness), environmental degradation (land and water bodies) Please READ 
Maria Rodale's, Organic Manifesto. Truth To Power! We are all 
connected. Monsanto CEO eats Organic while promoting GMO's and chemical 
farming. Disgraceful. Vote your conscience.
                                 ______
                                 
                        Comment of Martha Adams
    Date Submitted: Saturday, May 19, 2012, 6:38 a.m.
    City, State: Toledo, OH
    Occupation: Writer
    Comment: I fully support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I do not support:

  <bullet> Taking food from the mouths of the hungry to create a $33 
        billion new entitlement program that guarantees the income of 
        profitable farm businesses. That's on top of $90 billion in 
        subsidies for crop and revenue insurance policies.

  <bullet> Cutting $4 million from organic research funding and cut 
        funding to support Beginning Farmers in half.

  <bullet> The subsidized insurance program Congress proposes which 
        will allow giant commodity farmers and insurance companies to 
        walk away with billions in taxpayer dollars while putting the 
        land, soil and environment at greater risk.

            Sincerely,

M.J. Adams,
Toledo, Ohio.
                                 ______
                                 
                         Comment of Nancy Adams
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Le Roy, MN
    Producer/Non-producer: Producer
    Type: Nuts
    Size: 50-150 acres
    Comment: Please include the following in the new farm bill:

  <bullet> Support for the next generation--beginning farmers and 
        ranchers

  <bullet> Making healthy food widely available to all Americans

  <bullet> Protecting our natural resources and help farmers care for 
        their land

  <bullet> Driving innovation for tomorrow's farmers and food 
        entrepreneurs

  <bullet> Reforming outdated subsidies and restoring fiscal 
        responsibility in farm policy; and

  <bullet> incentives for renewable energy and energy conservation.

    Thank you.
                                 ______
                                 
                        Comment of Shirley Adams
    Date Submitted: Saturday, May 19, 2012, 8:29 p.m.
    City, State: Evanston, IL
    Occupation: Retired
    Comment: Please reduce pesticide use, support land conservation, 
and encourage more organic farming. Reduce subsidies to large growers 
and increase subsidies for small farmers. Focus on healthier food for 
all citizens. Stop the use of GMO foods that carry pesticide protection 
within them.
                                 ______
                                 
                        Comment of Tiffany Adams
    Date Submitted: Friday, May 18, 2012, 12:41 p.m.
    City, State: Langhorne, PA
    Occupation: Registered Nurse
    Comment: The health of our country strongly depends on the health 
of our food. We need to move our focus from growing cheap, commodity 
crops that only serve to feed the obesity epidemic and, in turn, 
support growing rates of chronic diseases like diabetes and heart 
disease; to growing varied, fresh, local fruits and vegetables in 
nutrient dense soil, using sustainable farming practices. We need to 
make these foods inexpensive and available to all Americans. We owe 
this to our children: to reverse the trend of shorter lifespan and 
increasing deaths from preventable illness in our country. This is why 
I support the full endorsement of all provisions of the Local Foods, 
Farms and Jobs Act (H.R. 3286.) I also support fully funding 
conservation programs, such as the Conservation Stewardship Program, 
and making sure that enrollment in any new insurance subsidies are tied 
directly to compliance with conservation programs. I support the 
implementation of all provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236), as well as maintaining the EQIP Organic 
Initiative. Thank you for your serious consideration on this important 
topic.
                                 ______
                                 
                       Comment of Kathryn Adamsky
    Date Submitted: Sunday, May 20, 2012, 11:21 a.m.
    City, State: Union, ME
    Occupation: Home Gardener
    Comment: I would like the farm bill to represent the interests of 
the consumer. Healthy, non-GMO, pesticide free food should be available 
to all people. Small farms are wonderful because these people live 
their beliefs and improve the community. Our food should not be a 
strictly profit driven business run by huge corporations that have no 
interest in the quality of the product except for its ability to fill 
their wallets. As a tax payer I expect that the government will use my 
tax money to protect my interests. That is the original purpose of our 
government--to protect us from abuse and harm by unethical peoples 
(corporations). Food and shelter are necessary basics and they should 
not be exploited or the choices limited by those with power (money). I 
ask that you do not bow to the money and corruption that threatens to 
take over this essential piece of our lives. Thank you.
                                 ______
                                 
                       Comment of Balthasar Adell
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Los Angeles, CA
    Occupation: Educator
    Comment: Now that the Internet actually exists, and I have access 
to information which is far away from me, but directly affects me, I 
have to ask myself, why does our government subsidize the production of 
high fructose corn syrup when we know it contributes to heart disease? 
It's really evil and you should be held accountable.
                                 ______
                                 
                         Comment of Jonah Adels
    Date Submitted: Sunday, May 20, 2012, 11:21 a.m.
    City, State: Putnam Valley, NY
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: As a small farmer in the Hudson Valley, it is vitally 
important to my livelihood that support for local food systems and care 
for the environment be supported in the upcoming farm bill. Too long 
has the farm bill funneled billions of taxpayer dollars into the hands 
of agribusiness giants at the expense of small farmers. We are the ones 
producing the food that will feed New York as gas prices increase. We 
are the ones creating jobs. Don't make our job harder. Just the 
smallest cuts in subsidies to the largest producers and insurance 
guarantees to commodity producers would allow massive job creating, 
small business supporting changes to our local food systems here in NY. 
We need your support! Please preserve, as a matter of justice, the 
vital nutritional assistance programs, and cut the programs that are 
legitimately wasteful, that distort the free market by tipping the 
scales in the favor of corporate giants, and the big government that 
supports it. Funnel just a percentage of those cuts into support for 
small farms, local food systems, and conservation programs, and you 
will win the votes of the growing percentage of my generation who is 
scraping a living by producing food for all of our families. 
Specifically, please support in the next farm bill:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you!
                                 ______
                                 
                       Comment of Carolyn Adessa
    Date Submitted: Sunday, May 20, 2012, 8:46 a.m.
    City, State: Mamaroneck, NY
    Occupation: Social Services
    Comment: Please vote to Subsidize Small Family Farms and Organic 
farmers, Provide Food Stamps for the Poor. Stop Subsidizing Huge 
Agribusinesses. Please, vote with your conscience not with the 
influence peddlers.
                                 ______
                                 
                     Comment of Adirondack Council
    Date Submitted: Friday, May 18, 2012, 3:57 p.m.
    City, State: Elizabethtown, NY
    Occupation: Environmental Nonprofit
    Comment: Dear U.S. House of Representatives Committee on 
Agriculture,

    On behalf of the undersigned, thank you for reviewing our comments 
regarding the 2012 Farm Bill. We represent a variety of organizations 
that support farming in Northern New York.
    Despite the significant budget issues we all face in 2012, we are 
continuing to collaborate and work towards addressing the Agriculture 
and Forestry challenges in the North Country of New York State and 
beyond.
    While a strong local farming movement is emerging, there are still 
considerable threats and challenges that farmers in the Champlain 
Valley and St. Lawrence Valley face. The 2012 Farm Bill has had 
significant improvements but we believe there are several programs that 
must be supported by legislation and funding. We are especially 
concerned with the following issues:
Forest Biomass for Energy Program
    The undersigned requests that the Committee continue to support 
research & development of renewable energy. We ask that you authorize 
appropriations to encourage forest biomass for energy production 
especially in the Northeast region of the United States.
Environmental Quality incentives Program Organic Initiative & 
        Conservation Stewardship Program
    These valuable programs assist in the growth of organic farming and 
conservation of ecologically important lands. These programs 
administered by NRCS help to encourage improvement of conservation 
efforts of farm & forest. We ask that the committee fully maintain 
support of these opportunities for the American people.
GE/GMO Drift Contamination Mitigation and Research
    We ask the committee to address our concerns over the damaging, 
rapid proliferation of GE/GMO plantings on our region's scarce and 
precious healthy soils, including the unregulated contaminating drift 
of GE/GMO patented pollen, herbicide resistant weeds, and unwanted 
seeds onto adjacent, unadulterated farmlands, a rapidly increasing 
threat to the financial viability of the sustainable farming movement 
and its non-GMO, non-chemical soil conservation practices.
Rural Development
    We strongly urge the Committee to continue supporting Rural 
Development programs. Investing in rural development initiatives helps 
small farms and communities access support services, such as 
slaughterhouses and quality health care. Rural America needs help to 
improve their struggling economies and community health.
The Local Farm, Food & Jobs Act
    The farm bill should support family farms, expanding farming 
opportunities and investing in the local economy. Programs are needed 
that will help regional agriculture address production, processing and 
distribution problems while improving consumer access to healthy foods.
Beginning Farmer and Rancher Opportunity Act
    We ask that the Committee fund this act as it supports economic 
opportunities for beginning farmers, ranchers, and military veterans 
through loans and other development programs. Programs like the 
Sustainable Agriculture Research and Education Program, 4-H programs 
and others have provided great assistance and should be continued. 
Research and educational programs are critical to the health and well-
being of Americans in the future.
The Expanding Access to Farmers Markets Act
    This amendment of the Food Stamp Act will improve access to healthy 
foods and increase purchases through the SNAP (Supplemental Nutrition 
Assistance Program), WIC (Woman, Infants and Children), School Food 
Programs, Senior Farmers' Market Program, and the Fresh Fruit and 
Vegetable Programs. We the undersigned, believe that continued and 
enhanced support of these programs are essential to growing 
agricultural economies and nutrition education.
    The 2012 Farm Bill can be an excellent tool, having a positive and 
uplifting effect on the rural farming economies of Northern New York 
State. Much like the New England States to our east, we have an 
emerging local farming economy that can provide food and farm products 
in a sustainable manner to the residents. The bill also provides secure 
farm bill funding for critically important programs that support family 
farms, expand new farming opportunities, create rural jobs, and invest 
our local food and agriculture economy.
    Thank you for your consideration.
            Sincerely,

Brian L. Houseal, Executive Director,
Adirondack Council;

Kate Fish, Executive Director,
Adirondack North Country Association;

John Bingham, member
Ag Natural Resource Advisory Committee, Cornell Cooperative Extension.
                                 ______
                                 
                         Comment of John Adkin
    Date Submitted: Friday, May 18, 2012, 3:26 p.m.
    City, State: Punta Gorda, FL
    Occupation: Retired
    Comment: We desperately need an Organic Foods Bill! We have 
children and grandchildren who need organic foods to survive. Please 
don't let the huge agricultural farms kill our family!
                                 ______
                                 
                        Comment of Janet Adkins
    Date Submitted: Saturday, May 19, 2012, 1:43 p.m.
    City, State: Lawrenceville, GA
    Occupation: Food Services Employee--Public Schools
    Comment: Please make our farm bill with our children's' health in 
mind. We already know well that there are too many chemicals in use and 
inspection needs to be more thorough to prevent foodborne illnesses. 
Our children are the future leaders of our once-great nation.
                                 ______
                                 
                        Comment of Stephen Adler
    Date Submitted: Friday, May 18, 2012, 1:15 p.m.
    City, State: Luray, VA
    Producer/Non-producer: Producer
    Type: Dairy, Livestock, Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: We are a small local farm. The farm bill needs to work for 
the small farmer also. Help us help the local population of concerned 
healthy eaters.
                                 ______
                                 
                       Comment of Louis D. Agnew
    Date Submitted: Tuesday, May 15, 2012, 8:19 p.m.
    City, State: Milwaukee, WI
    Occupation: Chemist
    Comment: Dear Honorable Gwen Moore,

    With the new Food Farm and Jobs Act, it seems pertinent that we 
should be taking into consideration that we are in an era of extreme 
weather events, hurricanes, tornadoes, flooding, drought, heavy snows 
or rains that cause mudslides and deep soil erosion, and, for whatever 
reason, it may be short term or it may be here to stay for awhile.
    In light of this, it is important that we both look towards 
mitigating the severity of potential crises for agriculture, focusing 
heavily on conservation measures wherever possible, as well as taking a 
serious look as soil conservation and soil nutrient conservation 
practices.
    Second, but in no way less important, is maintaining a nutritious 
food supply chain, not only measured in calories, but in mineral 
nutrients, vitamins and flavor, for the most vulnerable people in our 
society, including school children, families, elderly, minorities and 
immigrants.
    Some of the programs that are important to the solution to these, 
most recently of great concern issues are:

  <bullet> The Value-Added Producer Grants Program (VAPG) which 
        provides seed money to help farmers innovate in agriculture and 
        create jobs while securing a sustainable path to market-based 
        farm profitability,

  <bullet> The Conservation Stewardship Program needs to be improved by 
        ranking applications exclusively on their conservation 
        benefits. Farmers count on CSP and other conservation programs 
        to conserve soil for future generations, keep water and air 
        clean, and create habitat for wildlife--all while farming 
        profitably.

    We need to guarantee $25 million per year in mandatory funding for 
the Beginning Farmer and Rancher Development Program. We need a 
national strategy and commitment to support beginning farmer and 
ranchers entering agriculture. Without new farmers, we are missing out 
on the new knowledge and innovations that can facilitate the goals of 
sustainable agriculture.
    To protect soil and survive uncertain weather conditions, the best 
strategy is one with an emphasis on close attention to the situation 
combined with a willingness to innovate. One of the best programs we 
can fund is the Organic Agriculture Research and Extension Initiative 
at $30 million per year as mandatory funding. Investment in 
agricultural research is vital to continued productivity and innovation 
in growing and diverse sectors of American agriculture.
    Also, we must provide flexibility for states to use existing food 
procurement programs to purchase fresh, healthy food from local farmers 
and ranchers, especially for school meal programs so that our nation's 
children can become healthy and productive members of our society.
    Finally, we should scale back the more uncertain factors in 
agricultural experimentation today, such as diminishing the rate at 
which trans-genetic crops that depend upon complete vegetative removal 
or non-crop removal, which otherwise holds soil in place during severe 
weather events. The money removed from this sort of research should go 
towards the more organic engineering strategies that use plant and 
beneficial organism combinations to effect food production systems. 
Such systems have higher probabilities of remaining productive during 
severe weather events, as well as being more reflexive and adaptive in 
the face of such events.
    Thank you for your attention in this matter.
            Sincerely,

Louis D. Agnew.
                                 ______
                                 
                         Comment of Ann Aguilar
    Date Submitted: Thursday, May 10, 2012, 2:04 p.m.
    City, State: Oak Park, IL
    Occupation: Disabled Adult
    Comment: Dear Members of the House Committee on Agriculture,

    As a person who receives SNAP benefits and volunteers for a food 
pantry I strongly urge you to refrain from eliminating the food stamp 
program. It is not only vital to me, but to millions of Americans who 
are disabled, living below the poverty level, etc.
    Thank you for your concern.
                                 ______
                                 
                       Comment of Isabel Aguilar
    Date Submitted: Saturday, May 19, 2012, 2:28 a.m.
    City, State: Lakewood, CO
    Occupation: Biology Student
    Comment: We all Americans deserve to know what we eat, what we feed 
our children. It is important understand highly toxic food, organ 
damaging organisms, are in the market today. It needs to be removed 
completely from the shell urgently. Let's start working together to 
plant seed of life. Our generation are facing uncertain future; we 
cannot allow Monsanto continue his experiment with our children. Our 
children deserve organic food and natural. Let's, plant organic corn, 
organic soy, organic cotton seed and so on. We cannot destroy our 
planet also by spraying contaminants products like Round Up which is 
causing pollution and degrading our home. No, let's take action now! 
Monsanto must be arrested for crime of the humanity, there are many 
evidences how detrimental damaging caused Monsanto around world. There 
are kids with no arms, what would you do if that baby were your? There 
are many human beings with detrimental deformities, people dying with 
cancer, we have to raise our voice today! In Argentina for example, 
there are people suffering and Doctors and authorities are being deaf, 
blind, and ignoring the sad reality of their own people. We cannot 
continue with crossed arms without moving our finger.
                                 ______
                                 
                       Comment of Basheerah Ahmad
    Date Submitted: Saturday, May 19, 2012, 9:53 a.m.
    City, State: Atlanta, GA
    Occupation: Fitness Expert
    Comment: As a health and wellness provider I see firsthand, how 
detrimental the lack of healthy food choices can be. People are losing 
their battle on health everyday either due to poverty, ignorance, and 
often indifference. This situation will only become worse if our 
government takes away funding from programs that actually are helping.
                                 ______
                                 
                       Comment of Maimoona Ahmed
    Date Submitted: Friday, May 18, 2012, 2:18 p.m.
    City, State: Concord, CA
    Occupation: Retired
    Comment: We need to protect our future, our children and 
grandchildren. Farmers were once 90% of the U.S. population. They are 
disappearing at a rapid rate. We depend on family farms to produce 
natural food without the GMO ingredients which are shown to destroy the 
health of all of us. Agriculture should not just be a business for 
profit but a business to maintain and enhance the health of all 
Americans. Food and water are the basis of life. You can protect us by 
endorsing all provisions of the Local Foods, Farms and Jobs Act, fully 
funding conservations programs, maintaining the EQIP Organic Initiative 
and implement all provisions of the Beginning Farmer and Rancher 
Opportunity Act.
                                 ______
                                 
                        Comment of Tracey Ahring
    Date Submitted: Saturday, May 19, 2012, 2:19 a.m.
    City, State: Dennard, AR
    Occupation: Self-employed
    Comment:As a lifelong citizen of this country, I am tired of 
organic and family farms being shoved aside in order to subsidize 
bloated, unhealthy, and unsustainable agribusiness.
    It's easy to forget now, but this country was founded on the backs 
on small family farms, producing a wide variety of safe, healthy, 
organic foods.
    And it is way past time to honor that heritage.
    Agribusiness has done nothing but produce cheap, toxic food that 
rewards a limited few with profits while eating away at the vast 
majority of lives and land on which it relies.
    And I'm tired of its attempts to put a stranglehold on my freedom 
to choose what I feed myself and my family.
    If this is indeed the United States, then I should be able to 
choose the very basics of my existence--and that means safe, healthy, 
organic food, produced by families that truly care about the land and 
keeping it fertile for decades to come.
    Not agribusiness and its Monsantos and Cargills, who wish to 
control now and forever the very basics of life and drive all 
alternatives to extinction--un-American activity at its most extreme.
    Therefore, I am requesting a farm bill that honors the real farmers 
of this nation and all its citizens--one that finally stands for the 
people and against the corporate welfare that's propped up that 
parasite called agribusiness.
    I am also requesting the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286):

    1. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    2. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    3. Maintaining the EQIP Organic Initiative.

    Thank you.
                                 ______
                                 
                        Comment of Debbra Aiken
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Coppell, TX
    Occupation: Home Gardener
    Comment: Freedom is what our country was built on. It is and should 
be my right to feed myself my own food I have grown, without GMO's or 
at least properly label them. Your children eat this same GMO food. 
Don't you care what you are doing to them? Or is it only lining your 
pockets with corporate money you care about? Stop interfering with my 
rights.
                                 ______
                                 
                        Comment of James Ainslie
    Date Submitted: Saturday, March 24, 2012, 12:58 p.m.
    City, State: Hoffman, IL
    Occupation: Retired Federal Worker, Volunteer at USDA Food Pantry
    Comment: Facts:

    (1) Hunger in our country is continuing to increase.

    (2) Food insecurity is a growing issue that is affecting our 
        retired population and the very young.

    (3) The farm bill constitutes less than or equal to 2% of our 
        Federal Budget.

    Comments:

    While I believe that all programs need to be reduced to enable our 
country to address the growing deficit, the current parameters of the 
SNAP program should continue. There has been discussion in the media of 
changing the program to block grants. This is the wrong direction for a 
program that is effective and is among the most efficient in the 
Federal government. Block Grants for food assistance, given to states 
will ensure that high population areas will be serviced at the expense 
of low population areas that have the same requirements.
    The concept that private donations can fill the void is fallacious 
reasoning. Currently the private sector is trying to help fulfill the 
need, but private funding and assistance during troubled financial 
times is not a certain solution. I am optimistic that the country is 
started down the road for economic recovery, however, it is far from 
certain.
    This legislation needs to be accomplished this year. Too many stake 
holders need to know their future. These stake holders include the 
farmers and the 49 million individuals who are food insecure. The SNAP 
program and the Food Banks/Pantry system is only providing 51% to 55% 
of the monthly meal requirements. Significant reductions or major 
rewrites to the formula for providing benefits would result in serious 
negative results for the individuals using this service.
    I urge the members of congress to be prudent but also compassionate 
in enacting legislation that affects your constituents that need 
assistance. Visit food pantries in your district and see first hand the 
human cost of not supporting this important legislation.
                                 ______
                                 
                    Comment of Rev. David Aja-Sigmon
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Brooklyn, NY
    Occupation: Pastor
    Comment: House Agriculture Committee, Thank you for considering 
what is best for our citizens and the farms.

    As someone who daily works with the poor but also has an awareness 
of national issues in farming. I would like the committee to re-focus 
the farm bill. It seems like we are more interested in investing in 
powerful agribusiness (subsidies go to them at a rate that far 
outweighs small independent farmers) losing the governments money. If 
we were really considering the U.S. government's money we wouldn't give 
it all in subsidies to huge successful businesses, then expect the poor 
to foot the bill through cutting food stamps programs in a terrible 
economy.
    Therefore, I would like to endorse the following measures:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

            Sincerely,

    Rev. David Aja-Sigmon.
                                 ______
                                 
                         Comment of Fred Albach
    Date Submitted: Friday, May 18, 2012, 5:58 p.m.
    City, State: Burbank, CA
    Occupation: Retired
    Comment: I support small farmers and I oppose any and all actions 
taken by government and large agribusiness which hinders the small 
farmer. Too many regulations make it difficult for the small farmer to 
survive. Why do I support the small farmer? Because the quality of his 
good is generally superior to that grown on a large corporate farm.
                                 ______
                                 
                       Comment of Carrie Albarado
    Date Submitted: Friday, May 18, 2012, 1:15 p.m.
    City, State: Pflugerville, TX
    Occupation: Homemaker
    Comment: I have a love/hate relationship with food. Food is a 
unifying substance that we all need to survive, and with the wrong 
knowledge and the funding of the wrong programs the country becomes to 
hate food. With the right programs and the right knowledge, food 
becomes a positive enlightening aspect that can and should be shared by 
all. End the profits of large non-sustainable monoculture by ending the 
subsidies, the funding, and make policies where the true cost of the 
``bad'' production of food is captured. Only then can we begin to grow 
and learn to love, not hate, our food. I support local, organic, and 
sustainable agriculture and can only hope that it becomes feasible for 
everyone to be able to attain such.
                                 ______
                                 
                        Comment of Robert Albee
    Date Submitted: Friday, May 18, 2012, 11:46 p.m.
    City, State: Williams, OR
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: I ask that small producers such as myself be considered as 
you formulate where to allocate farm bill funds. Small, organic 
producers are committed land stewards that require funding assistance 
to implement programs and farm improvements that lead to a cleaner 
watershed. Fair allocation of government funds to those implementing 
sustainability will encourage even more participation in agro-ecology.
                                 ______
                                 
                        Comment of Jaime Alcoba
    Date Submitted: Saturday, May 19, 2012, 9:33 a.m.
    City, State: Miami, FL
    Occupation: Office Support
    Comment: This farm bill would be good because it better allows 
those who want to stay as farmers to do so. We should not take our hard 
won agricultural lead overseas the way we did other industries.
                                 ______
                                 
                       Comment of Dawn Alexander
    Date Submitted: Friday, May 18, 2012, 5:02 p.m.
    City, State: Monroe, WA
    Occupation: Sales Representative
    Comment: I am a consumer and I am tired of the ``frankenfoods'' 
that fill our grocery stores, causing obesity in America. I do not 
purchase any of this food. I am all for cutting back on large corporate 
agriculture subsidies. I am against GMO foods and if the food is 
genetically altered--it needs to state that on the label. I am all for 
supporting more Organic Farms in this country. We need to stay safe and 
healthy.
                                 ______
                                 
                     Comment of Elizabeth Alexander
    Date Submitted: Friday, May 18, 2012, 5:28 p.m.
    City, State: Cranbury, NJ
    Occupation: Clergy
    Comment: Please support sustainable organic farming in New Jersey. 
Also, help prevent GMO farming that interferes with organic farming. My 
grandfather was a NJ farmer who suffered the consequences of using 
unsafe pesticides in the early 1900s. Today our communities want 
nutritious and safe fresh local foods to eat.
                                 ______
                                 
                      Comment of Simone Alexander
    Date Submitted: Friday, May 18, 2012, 4:38 p.m.
    City, State: Chicago, IL
    Occupation: Employee at Community Based Organization
    Comment: Please ensure that we prioritize the needs of our farming 
communities before large agribusiness, and that we continue to support 
the families across the country who are struggling to put enough food 
on the table and relying on programs like SNAP to do this. The farm 
bill has incredible potential to support the livelihood of small 
farmers and improve our food system, while also maintaining a strong 
safety net that is so necessary in this economy.
                                 ______
                                 
                      Comment of Peseri Alexandra
    Date Submitted: Wednesday, May 02, 2012, 10:50 a.m.
    City, State: Oyster Bay, NY
    Occupation: Student
    Comment: Dear Representative,

    The following is a list of priorities I feel the farm bill should 
incorporate:
    I would like to see increased assistance for young, beginning 
farmers, in the form of microloan and agricultural education programs. 
The farming population is aging, and newer, younger farmers will need 
to establish themselves. It would benefit our country's agricultural 
economy and livelihood to help beginning farmers.
    Conservation efforts, although funded generously, have begun to 
degrade due to lack of stringent enforcement. Water quality is a major 
issue and often occurs due to agricultural runoff. Farmers sometimes 
feel burdened by government regulation in this area, but still, water 
quality remains an issue. The Federal government needs to find a 
medium, whereby rules will be enforced, but also, where farmers are not 
too strained. Promoting organic agriculture is a feasible and 
beneficial option that can reduce the degradation of water quality, 
since it uses less pesticides.
    Indeed, funding for organic and integrated farms, both of which use 
less pesticides and result in much less environmental harm than does 
conventional agriculture, is essential.
    Thank you for your time.
                                 ______
                                 
                    Comment of Suzanne Alford-Hodges
    Date Submitted: Friday, May 18, 2012, 1:29 p.m.
    City, State: Russellville, AR
    Occupation: Small Business Owner--Retail Picture Framer and Gallery 
Owner
    Comment: Dear Representative Womack, bills that promote health, 
education about real food and sustainable agriculture while allowing 
our independent farmers to thrive is critical to turning around our 
unhealthy population. Lawmakers are subsidizing non food products and 
the uninformed public is wasting money and destroying their health 
buying these heavily advertized non-foods. Place high taxes on non-
foods, like soft drinks and flavored ``water''! Stop subsidizing 
chemical creations like high fructose corn syrup and genetically 
modified foods. I believe that the big agri food business is in the 
same category as big banks: Making huge profits at the expense of the 
health of our nation, physically and economically. I'd be interested to 
know if you are familiar with Michael Pollan's books, in particular, 
The Omnivore's Dilemma? If not, may I send you a copy?

Suzanne Alford-Hodges
                                 ______
                                 
                       Comment of Michelle Alioto
    Date Submitted: Friday, May 11, 2012, 9:58 p.m.
    City, State: Oak Park, IL
    Occupation: Student, Mother
    Comment: I spend many of my community service hours at the local 
food pantry and see what a difference a little money makes in feeding 
thousands of families per month. Why cut this Federal budget to feed 
these poor families? Please put my tax dollars to good use and take 
care of our struggling neighbors. Thank you for your time.
                                 ______
                                 
                        Comment of Mary Allemier
    Date Submitted: Sunday, May 20, 2012, 10:23 a.m.
    City, State: Hesperus, CO
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: 50-150 acres
    Comment: I am a beginning farmer and would like to see more support 
for the industry. I feed my family and sell a small bit at the local 
farmers market, but we could do so much more with a little guidance and 
financial help. Please consider these things in any new farm bills 
introduced.
                                 ______
                                 
                        Comment of Barbara Allen
    Date Submitted: Saturday, May 19, 2012, 7:02 p.m.
    City, State: Alexandria, VA
    Occupation: Retired
    Comment: As an active member of the faith community, our 
congregation supports and collects a variety of canned goods, pasta, 
jellies, peanut butter and other food supplies. We also collect 
personal hygiene and baby items each first and third Sunday of each 
month.
    Although as one congregation, we have increased the amount of 
supplies donated each month, the food pantry often has empty shelves 
that must be replenished because of the high need of our neighbors.
    Too many of our brothers and sisters, and our neighbors are still 
out of work or are paid a low wage that makes it difficult for them to 
take care of their families without the benefit of our local food 
pantries to meet the needs of our neighbors.
    We demand that you pass a strong Farm bill that protects programs 
like SNAP (supplemental nutrition assistance program), TEFAP (the 
emergency food assistance program), and CSFP (commodity supplemental 
food assistance program) which help provide food for our local 
neighbors and millions of America's most vulnerable seniors, children 
and working poor.
    Thank you.
                                 ______
                                 
                       Comment of Christina Allen
    Date Submitted: Saturday, May 19, 2012, 8:37 a.m.
    City, State: Elko, NV
    Occupation: Warehouse Associate
    Comment: We need good quality produce in the markets and we need to 
ensure that the seeds we buy will be safe for all farmers including 
back yard enthusiasts. No GMO seeds! Please help us find a solution 
that will feed America and keep us safe and free of altered and 
unhealthy food.
                                 ______
                                 
                         Comment of Diann Allen
    Date Submitted: Friday, May 18, 2012, 1:51 p.m.
    City, State: Cupertino, CA
    Occupation: Designer, Writer
    Comment: It is important that You take feeding the people that you 
represent in a healthy way. We must reward the best stewards of our 
main resources--our land, water and air--and stop providing biggest 
funding for those that deplete Our resources. Feeding our entire 
population healthy foods, is of utmost importance for a healthy future. 
We have seen how poor diet has impacted the health of our population 
and has filled the pockets of industrial giants across the board. Your 
next steps are being watched and scrutinized. Take positive action to 
support the people and our land. And don't be confused about the term 
``people.'' A picture of a corporation will never be included as part 
of the true definition of what a person is. Are you a person? Take 
action to support clean farming.
                                 ______
                                 
                      Comment of Jerrold E. Allen
    Date Submitted: Saturday, May 19, 2012, 8:14 p.m.
    City, State: Falls Church, VA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I would like to offer my views and expectations on the 
upcoming farm bill. It is time--in fact long overdue--to pass a farm 
bill that is truly in the interest of the American people.
    The large ``agribusiness'' companies do not need public support. 
They have adequate resources for what they are trying to do, which is 
frequently not in the public interest. The farm bill should foster 
policies that set a new direction.

    1. A new farm bill should support small farmers. It should 
        implement all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3235)

    2. A new farm bill should support local agriculture. It should 
        fully endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286)

    3. A new farm bill should support the trend toward organic farming. 
        It should maintain the EQIP Organic Initiative.

    4. A new farm bill should support agriculture for food, not for 
        fuel. Subsidies for corn ethanol are neither good food policy 
        nor good energy policy.

    5. A new farm bill should support a movement away from the toxic 
        chemical monocropping agriculture that has damaged so much 
        soil, weakened nutritional values, and caused illness among 
        consumers, to say nothing of farm workers. It should fully fund 
        conservation programs, such as the Conservation Stewardship 
        Program.

    6. A new farm bill should end subsidies to large agricultural 
        corporations--but the proposed subsidized insurance program is 
        not a satisfactory replacement because of its opportunities for 
        fraud and abuse.

    Agriculture is and always will be the foundation of a healthy 
economy--all must eat. Please offer a farm bill that considers the 
overall public welfare and not that of agricultural corporations 
looking for a handout.
                                 ______
                                 
                       Comment of Jonathan Allen
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Brookline, MA
    Occupation: Electronics Design Engineer
    Comment: My parent's families were all farmers, and so had healthy, 
unpolluted lifestyles. Without a well balanced farm bill, such living 
will become totally extinct, and our options as consumers will be 
eliminated.
                                 ______
                                 
                         Comment of Lynn Allen
    Date Submitted: Friday, May 18, 2012, 2:00 p.m.
    City, State: Santa Fe, NM
    Comment: Maintaining safe food, Air, Water, and environment is 
fundamental to life of all species--including us!
    Please protect and enhance that safety by cutting the subsidies to 
large corporate interests, and maintaining support for ``real people'' 
who are devastated by the current economy. Corporations Are Not Real 
People, regardless of their legal status and what politicians may say. 
Real People need support, not corporations, especially corporations 
with ``Net Profits''!
    Your obligation is to the majority of real people, not to corporate 
interests.
    We want to watch you as you serve the real peopled future of this 
nation and act according to the mission of your governmental 
department.
                                 ______
                                 
                       Comment of Marie K. Allen
    Date Submitted: Friday, May 18, 2012, 11:01 p.m.
    City, State: Waco, TX
    Occupation: Landscape Consultant
    Comment: We need healthy people to have a healthy nation. Unless we 
have healthy, sustainably produced food, we cannot become or remain 
healthy. Small, local farms are in the best position to provide such 
food.
                                 ______
                                 
                         Comment of Matt Allen
    Date Submitted: Friday, May 18, 2012, 2:11 p.m.
    City, State: Raleigh, NC
    Occupation: Environmental Geologist
    Comment: I would like to see subsidies for big agriculture removed 
as well as subsidies for corn ethanol. I would like to see more support 
for small local farmers and incentives for people to get into small 
farming. The future of our agricultural system is in danger by big 
agriculture. The food that we currently eat is nutritionally poor and 
loaded with pesticides and artificial fertilizers. Please open this 
dialogue and give it some serious thought.
                                 ______
                                 
                       Comment of Mitchell Allen
    Date Submitted: Friday, May 18, 2012, 9:33 p.m.
    City, State: Clinton, WA
    Occupation: Engineer
    Comment: Local economies are in disparate need, and a locally 
focused, small farmer focused farm bill is one of the best ways to 
support and stimulate local economies.
                                 ______
                                 
                        Comments of Trisha Allen
    Date Submitted: Friday, April 27, 2012, 9:16 a.m.
    City, State: Hobe Sound, FL
    Occupation: Wine Consultant
    Comment: I am for food labeling, in particular the country wide 
lawsuits involving Monsanto and what percentage of ingredients in our 
foods that are ``UN-naturally'' added. I have a friend who has been a 
beekeeper and am horrified by the over whelming influence this company 
has had over the quality of our foods. The people are watching how 
congress and senators vote on this issue very closely. Do the Right 
Thing, and stop voting with your pocket books and political gain for 
yourselves!
    Date Submitted: Thursday, May 03, 2012 9:15 a.m.
    Comment: We need GMO labeling on every product Monsanto touches 
with their conglomerate over our food sources and what they are doing 
not just in this country, but around the world. We Need Not Be Afraid 
of their $$$ available to fight legislation to keep these bill off the 
Nov ballets around this country. I am contacting all state legislators 
and friend and family to be aware and make our voices heard on this 
issue. It is Very important to me and my family's future.
                                 ______
                                 
                        Comment of Whitney Allen
    Date Submitted: Thursday, May 03, 2012, 11:50 a.m.
    City, State: Forest Park, IL
    Occupation: Social Worker
    Comment: I am a social worker on the West Side of Chicago and every 
day I see the impact of hunger in these communities. TEFAP and SNAP are 
absolutely essential resources for millions of Americans. Please do 
everything you can to strengthen funding for TEFAP and SNAP and oppose 
proposals that would change SNAP's structure or reduce funding, 
restrict eligibility or reduce benefits.
    Thank you.
                                 ______
                                 
                      Comment of Dr. John Alloway
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: Cabin John, MD
    Occupation: Natural Physician
    Comment: As a physician and nutritionist, I am appalled at what 
passes for food in this country. All you need to look at is the health 
of Americans to see that a much better food situation is super 
necessary. Pass the organic food bill or you will see much worse health 
situations in the future.
                                 ______
                                 
                        Comment of Miriam Allred
    Date Submitted: Friday, May 11, 2012, 10:06 a.m.
    City, State: Salt Lake City, UT
    Occupation: Technical Writer
    Comment: Programs like SNAP, TEFAP, and CSFP provide vital 
assistance to many Americans. I want to live in a country where 
everyone has the food that they need. Please protect these programs.
                                 ______
                                 
                      Comment of Katherine Almeida
    Date Submitted: Friday, May 18, 2012, 11:47 a.m.
    City, State: Somerville, MA
    Occupation: ESL Teacher
    Comment: I would like my food to remain local so I know what is in 
it and who grows it. I am willing to pay higher prices for it, but 
above all, I want my food to be food, not a genetic lab experiment.
                                 ______
                                 
                        Comment of Mike Altemose
    Date Submitted: Thursday, May 17, 2012, 2:09 p.m.
    City, State: Hartford, CT
    Comment: Our country (USA)is still in a recovery process from not 
only what happened on Wall Street, but also from past natural 
disasters. For proof look at what is happening here in Hartford: 
shootings and robbery in the streets and at home, people still being 
laid off from companies in large numbers. Kids being pulled by 
authorities from their families. Now, to make it worse, Congress is 
considering cutting the SNAP program that just started and put the 
burden on D.S.S. and the people they are trying to help. What's up 
America? This has become the land of the broke and hungry not free and 
brave.
                                 ______
                                 
                        Comment of Andrew Altman
    Date Submitted: Friday, May 18, 2012, 1:14 p.m.
    City, State: Wyncote, PA
    Occupation: Teacher
    Comment: I will be teaching my students about the new 
recommendations for healthy eating. Then I will teach my students about 
how our government supports farmers. Will my students learn that our 
country supports healthy eating or huge industrial farm businesses? You 
decide. I urge you to support fruit and vegetable growers as well as 
small family farmers and others using humane and sustainable farming 
practices.
                                 ______
                                 
                        Comment of Armand Altman
    Date Submitted: Saturday, May 19, 2012, 6:13 p.m.
    City, State: Hyde Park, VT
    Comment: Please support this bill, and hopefully your not 
influenced by the lobbyists. This bill is not only for the health of 
your family now, but your grandchildren, and future children.
    I hope that your not another politician who compromises his vote 
and values to support the lobbyists on this bill!
                                 ______
                                 
                         Comment of Billy Altom
    Date Submitted: Monday, April 02, 2012, 3:18 p.m.
    City, State: North Little Rock, AR
    Occupation: Advocate for People/Farmers with Disabilities
    Comment: April 2, 2012

Hon. Frank D. Lucas,
Chairman,
House Committee on Agriculture,
Washington, D.C.

    Honorable Chairman Lucas, Ranking Member Peterson and Distinguished 
Members of the Committee:

    Rural policy is driven in large part by the farm bill. The farm 
bill, however, covers much more than agriculture. Disability issues 
have generally had little consideration in the bill, with the exception 
of some attention to housing and technology (e.g., AgrAbility). It is 
time to change that, and infuse disability into relevant parts of this 
important rural legislation. This is why the Association of Programs 
for Rural Independent Living (APRIL) believes that people with 
disabilities in rural America need to be recognized in the 2012 Farm 
Bill.
    APRIL is a national membership organization dedicated to advancing 
the rights and responsibilities of people with disabilities in rural 
America. We provide leadership and resources through a national network 
of rural centers for independent living, organizations and individuals 
concerned with the unique aspects of rural independent living. The goal 
of APRIL is to work with others to find solutions to common problems 
and to bring rural issues in independent living into focus on the 
national level.
    Farmers and ranchers with disabilities were rightly recognized in 
1990 with the creation of the AgrAbility programs. APRIL, and its 
members, work closely with the state and national program to insure 
farmers and ranchers with disabilities can remain in their vocation. We 
seek the same recognition for other rural people with disabilities in 
this bill.
    The health and economic vibrancy of the rural American landscape 
affects everyone. This includes people with disabilities. Therefore, 
APRIL urges policy makers to specifically recognize people with 
disabilities in the reauthorization of the farm bill.
    APRIL would urge policy makers to include people with disabilities 
in all sections of the bill relating to the titles on rural 
development. For example, in the current bill the section describing 
``underserved and disadvantaged'' populations should specifically 
include people with disabilities in the list of populations mentioned.
    Second, APRIL urges members of Congress to fulfill its promise to 
rural people with disabilities seeking employment. In 2008 the bill 
included a new program in Title VI, Subtitle A, Consolidated Farm and 
Rural Development Act, specifically section 6023.
    The short title defined the new program:
    The Secretary shall make grants to nonprofit organizations, or to a 
consortium of nonprofit organizations, to expand and enhance employment 
opportunities for individuals with disabilities in rural areas;

    And,

        Authorization of Appropriations.--There is authorized to be 
        appropriated to carry out this section $2,000,000 for each of 
        fiscal years 2008 through 2012.''.

    While section 6023 was authorized in the bill and a recommendation 
of the proposed level of appropriations was included in the bill, no 
appropriation was ever made, and rules to establish the program were 
not promulgated.
    This reauthorization creates an opportunity for policy makers to be 
inclusive of all rural Americans as we strive to strengthen our 
communities.
            Respectfully Submitted,

Billy Altom,
Executive Director,
Association of Programs for Rural Independent Living,
[Redacted].
North Little Rock, AR 72114
                                 ______
                                 
                        Comment of Jose Alvarado
    Date Submitted: Friday, May 18, 2012, 3:04 p.m.
    City, State: Colorado Springs, CO
    Occupation: Technical
    Comment: Large agribusiness does not care about the health effects 
all the toxins agribusiness uses to produce crops that jeopardize our 
nation's health thus putting greater strain on our healthcare system 
and ultimately the general health of our nation. Its All About Profit 
Only!
                                 ______
                                 
                      Comment of Jose D. Alvarado
    Date Submitted: Friday, May 18, 2012, 9:41 p.m.
    City, State: San Pablo, CA
    Occupation: Agriculture Engineer
    Comment: As consumer, I have the right to know what is the content 
of my food, as well when I buy clothes, the labels describe me the 
material of what the clothes are made.
            Sincerely,

Jose D. Alvaado,
USDA/APHIS/PPQ Officer.
                                 ______
                                 
                         Comment of Ana Alvarez
    Date Submitted: Saturday, May 19, 2012, 3:01 a.m.
    City, State: Clermont, FL
    Occupation: Disabled ex EMT
    Comment: Farmers and eaters across the U.S. benefit from a fair and 
healthy farm bill. We have to stop the subsidies that guarantees more 
income to the profitable farm businesses, they don't need it. We have 
to stop the $4 million cut from organic research funding and the cut in 
\1/2\ to the funds to beginning farmers. We have to stop that new 
subsidize insurance program that leading sustainable agriculture 
advocates are calling rife with opportunities for fraud and abuse.
    While congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayers dollars while putting 
the land, soil and environment at greater risk. By failing to place 
limitations on crop insurance subsidies and to re-attach soil erosion 
and wetland conservation requirements to crop insurance programs, the 
Committee has failed to do the full reform that it needed. We can't 
allow this to happen. We need a real reform and a healthy organic 
future.
                                 ______
                                 
                      Comment of Margarita Alvarez
    Date Submitted: Saturday, May 19, 2012, 9:04 p.m.
    City, State: Chicago, IL
    Occupation: House Wife
    Comment: I am currently working on the data collection side of a 
research project assessing fresh food accessibility in the United 
States, and is related to child obesity, and I have traveled dozens of 
communities across the contiguous U.S. and have seen almost no fresh 
fruit and vegetable availability that is sourced locally. I drive the 
streets and roads of these, many times rural, communities and find so 
much agriculture, but none that is destined to be sold locally. More 
often than not they are commodity crops, or crops to be shipped 
hundreds or thousands of miles away. I have been in towns that have 
plenty of grazing land, and many times land roaming with grass-fed 
cattle, but just around the corner at the local diner, the meat served 
didn't come from the town itself, it comes from a large agribusiness 
type company, thousands of miles away, from where the local chain 
supermarket purchases its meat. This is extraordinarily inefficient! 
Please make it so that significantly more food is sourced locally in 
more places across the country. Make this viable for the farmers and 
the public. One of the Only places where I have seen a local bounty of 
fresh fruits and vegetables readily available via produce stands 
scattered all over the roads is on the way to Madera California, which 
produces all kinds of fruits, vegetables and nuts. It is embarrassingly 
ridiculous how poorly we have reversed progress, as compared to our 
European counterparts, who have been sourcing so much of their foods 
locally as has been the case for centuries. Why is it so easy to help 
large scale agriculture, with subsidies but not small scale 
agriculture? Why is government so stubborn to change this, when they 
can see that the only ones that benefit are the ruthless, insatiable 
large agribusiness companies that seem to run it all. Enough of this, 
it is slowly killing us all. I want to feel proud of the food I eat. I 
want to be healthy and I want the land to be healthy. Soybean and Corn 
byproducts should never more be a priority over fruits and vegetables. 
That kills. Don't you understand, a healthier nation, is better and 
less of a costly for the nation. We all know somebody affected by 
obesity or are obese ourselves, so it is obvious obesity is a top 
killer in America, and you can do something about it, but will you?
                                 ______
                                 
                      Comment of Veronica Alvarez
    Date Submitted: Saturday, May 19, 2012, 3:36 p.m.
    City, State: Honolulu, HI
    Occupation: Restaurant Worker
    Comment: We need an Organic Farm Bill. As humans, we cannot 
continue to ignore the fact that unsustainable petroleum based farming 
methods will leave the vast majority of us unhealthy and hungry in the 
long run. We need to take care of our 'aina and our ohana. Food stamps 
are an important part of keeping people with roofs over their heads and 
getting families food they need during these uncertain economic time. 
Mahalo for serving the interests of Hawai'i and all the people here.
                                 ______
                                 
                         Comment of Erv Amdahl
    Date Submitted: Friday, May 18, 2012, 10:22 p.m.
    City, State: Sierra Vista, AZ
    Occupation: Residential Remodeling Design and Sales
    Comment: When the original farm bill was enacted many years ago, it 
was to help the family farm, but somewhere along the way, it lost its 
intended purpose and the majority of money goes to corporate farms. 
That needs to end and go back to helping the small farms and organic 
farms that produce healthier crops and less or not contaminated by 
chemicals or genetically modified genes that who knows what the dire 
consequences could be many years down the road. We already know of many 
harmful things happening because of genetically modified crops and my 
guess is, that it's only the beginning of all the problems we'll find 
out in the future, many of which that are already known but hidden by 
the likes of Monsanto for their own greed.
                                 ______
                                 
                        Comment of Sharilyn Ame
    Date Submitted: Saturday, May 19, 2012, 11:56 a.m.
    City, State: Corvallis, OR
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Field Crops, Poultry/poultry products
    Size: Less than 50 acres
    Comment: It is time to support small farms, organic farms, and 
local production for local markets. Food security of regional crops for 
regional markets needs to become a priority as we enter into an era of 
increasing fuel insecurity, global climate change, and the 
corresponding imminent need to wean ourselves off of egregious waste of 
fossil fuels in food production and distribution.
    We must also encourage the transfer of farmland from the aging, 
soon-to-retire-farmers into the hands of younger, emerging farmers, 
thus protecting farmland from development and resource extraction. If 
we are to maintain our freedom and autonomy as nation, proactive 
recruitment of the next generation of farmers on their own terms is 
crucial.
    More money needs to be set aside for expansion of organic 
production. Subsidies to big corn and soybean producers must be 
curtailed, for the health and future of American children is suffering 
(this is the first generation in recorded history slated to have a 
lower life expectancy than their parents!), as is the health and future 
of our soil, our water, and our democracy.
                                 ______
                                 
Submitted Letter by American Jewish World Service; Bread for the World; 
CARE; Church World Service; Institute for Agriculture and Trade Policy; 
Maryknoll Office for Global Concerns; Mercy Corps; Modernizing Foreign 
 Assistance Network; Oxfam America; Partners In Health; Partnership to 
 Cut Hunger and Poverty in Africa; United Church of Christ Justice and 
 Witness Ministries; United Methodist Church, General Board of Church 
                              and Society
May 2, 2012




Hon. Frank D. Lucas,                 Hon. Collin C. Peterson,
Chairman,                            Ranking Minority Member,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.;

Hon. Ileana Ros-Lehtinen,            Hon. Howard Berman,
Chairwoman,                          Ranking Minority Member,
House Committee on Foreign Affairs,  House Committee on Foreign Affairs,
Washington, D.C.;                    Washington, D.C.



    Dear Chairman Lucas, Chairwoman Ros-Lehtinen, Ranking Members 
Peterson and Ranking Member Berman,

    We the undersigned organizations write to voice our strong support 
for U.S. international food aid programs, and request that these 
critical, life-saving programs be strengthened through reforms to 
improve effectiveness and efficiency. Through programs authorized under 
the farm bill, U.S. food aid is estimated to have reached more than 65 
million people in fiscal year 2010. Emergency relief and development 
programs supported through food aid can make a difference in the lives 
of people in need. Benefits include preventing or reversing 
malnutrition in young children, meeting the food needs of victims of 
man-made or natural disasters and improving food security for 
chronically poor households.
    This year's reauthorization of the farm bill presents an 
opportunity to evaluate current program authorities to determine 
whether they continue to best meet both emergency and development 
needs. We hope you will take this opportunity to increase the 
flexibility of the current food aid program structure while maintaining 
U.S. leadership on global hunger and food security. By building on 
program improvements introduced in the Food, Conservation and Energy 
Act of 2008, U.S. food aid can reach millions of additional people 
while maintaining current spending levels.

    As you contemplate further updates to the food aid program, we 
would urge your attention to two specific issues:

  <bullet> The expanded use of local and regional procurement as an 
        additional tool for delivering food assistance;

  <bullet> The increased provision of non-food resources to cover 
        program expenses coupled with heightened efficiency targets for 
        monetization activities.

    Local and regional procurement:

    Since 2008, the United States has increased support for local and 
regional procurement of food aid (LRP), including through Section 3206 
of the 2008 Farm Bill which authorized a $60 million pilot program to 
implement and study LRP activities in both emergency and non-emergency 
settings. The LRP pilot has been shown to save money and time, adding 
an important and versatile tool which can be used to reach people in 
need. We urge the Agriculture Committee to incorporate greater use of 
LRP across food aid programs authorized in the farm bill. Toward this 
objective, we strongly encourage you to maintain and expand authorities 
currently provided on a pilot basis under Sec. 3206 of the 2008 Farm 
Bill. Authorized funding should be set at no less than $100 million 
annually.

    Increased resource flexibility and addressing monetization:

    For most food aid programs, limited funding exists to support the 
implementation of complementary food security activities alongside 
direct food distribution. Monetization, the sale of food aid 
commodities in developing country markets, is commonly used to generate 
funds needed for these activities. The process of monetization has 
proven to be an inefficient means of supporting complementary food 
security activities: according to the Government Accountability Office 
(GAO), between fiscal year 2008 and 2010, $219 million in food aid 
resources was lost as a result of low cost-recovery rates in 
monetization activities. The same GAO report found that cost recovery 
for monetization activities averaged 58 percent for USDA administered 
programs and 76 percent for programs administered by USAID.
    In many instances, the use of monetization is not the optimal 
solution to fund development activities and would not be employed if 
alternative cash resources were available as part of the food aid 
programs authorized through the farm bill. In order to address current 
program limitations, we urge you to incorporate changes that will 
increase available non-food resources in food aid programs and improve 
efficiencies in monetization activities. Specifically:

  <bullet> The McGovern-Dole International Food for Education and Child 
        Nutrition Program authorizes the ``procurement of agricultural 
        commodities and the provision of financial and technical 
        assistance'' to carry out school feeding and maternal and child 
        nutrition programs. This model, in which an implementing 
        partner can request both cash and commodities for program 
        activities, should be replicated in the Title II program.

  <bullet> Additionally, section 202(e) of the Food for Peace Act 
        should be expanded. Currently, this section authorizes up to 
        13% of the appropriated levels of the Title II budget to be 
        provided for use in the areas of program logistics, management 
        and certain program-related costs. The Agriculture Committee 
        should expand applicable uses of 202(e) resources and lift the 
        existing 13 percent limit to 18 percent.

  <bullet> In conjunction with increased cash resource availability, 
        the use of monetization should be curtailed in instances where 
        substantial cost recovery cannot be obtained. Consistent with 
        previous practice and guidance provided by USAID, the farm bill 
        should direct USAID to utilize monetization in instances where 
        at least 80% cost recovery can be achieved, and to use cash 
        resources to fund complementary program activities in countries 
        that cannot achieve this threshold. Oversight, including 
        through regular, public reporting of monetization cost recovery 
        levels achieved by implementing agencies (USAID and USDA) and 
        post-monetization market impact assessments, should also be 
        supported in legislation.

    We appreciate your thoughtful leadership on this issue and look 
forward to working with you to craft improvements to U.S. food aid 
programs to ensure that they meet the humanitarian and development 
needs of the 21st century.
    Thank you for your consideration.
            Respectfully,
 American Jewish World Service        Oxfam America
Bread for the World                  Partners In Health
CARE                                 Partnership to Cut Hunger and
Church World Service                  Poverty in Africa
Institute for Agriculture and Trade  United Church of Christ Justice and
 Policy                               Witness Ministries
Maryknoll Office for Global          United Methodist Church, General
 Concerns                             Board of Church and Society
Mercy Corps
Modernizing Foreign Assistance
 Network
CC:

Members of the House Committee on Agriculture;
Members of the House Committee on Foreign Affairs.
                                 ______
                                 
                        Comment of Gary Ammirati
    Date Submitted: Friday, May 18, 2012, 2:52 p.m.
    City, State: Los Angeles, CA
    Occupation: Customer Service
    Comment: I have started a small organic edible garden on my land, 
because it is so hard to trust that food created by others is healthy.
    I support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I believe we need to get off our dependency of oil, almost all 
pesticides and fertilizers are petroleum based and therefore toxic to 
humans, that is a good place to start, stricter regulations on the 
chemicals used in farming, but most of all we need to move from our 
current large farm farming practices to bio-dynamic farming practices.
                                 ______
                                 
                         Comment of James Amory
    Date Submitted: Friday, May 18, 2012, 2:04 p.m.
    City, State: LeRysville, PA
    Occupation: Cheesemaking Consultant
    Comment: Small dairy farms in general have lower costs and higher 
profit per cow than mega-dairies, yet we are losing the small units. 
The ``Margin Insurance'' proposals of NMPF, DFA and others does nothing 
to address this problem, and introduces insurance companies and more 
speculation into milk pricing.
    Please address the real issues of chaotic and manipulative milk 
pricing.
                                 ______
                                 
                        Comment of Laurie Amsler
    Date Submitted: Friday, May 18, 2012, 11:59 p.m.
    City, State: Albany, NY
    Occupation: Furniture Sales
    Comment: Instead of money going to big business like Bayer and 
Monsanto . . . I will no longer buy their products . . . we should be 
looking into making organic farming better . . . how to work with 
nature not against her . . . If we don't stop we are going to kill 
ourselves . . . that's right . . . we are already are . . . please do 
the right thing and pass this bill.
                                 ______
                                 
                       Comment of September Amyx
    Date Submitted: Sunday, May 20, 2012, 4:10 a.m.
    City, State: Marysville, CA
    Occupation: Retired Military/Disabled
    Comment: I used to be a Veterinary Technician for the U.S. Air 
Force, and part of that job was public health, inspecting food. I find 
the situation concerning GMO foods, food additives, and the rate of 
illness and obesity in our country more than alarming. Do you actually 
realize what sort of quandary our country will be in without good, 
healthful, `as God made it' food? You are already seeing the results of 
low level long term exposure to pesticides and GMO crops; super bugs, 
subtle but significant alterations in human development, and strange 
new diseases. Please, do the USA and all of us, including you, a favor. 
Stop, Think. Whatever your decision is based on, morals, greed, or 
corporate coercion, it will affect everyone for a far longer time than 
anyone thinks or has said to you. You've seen what fracking has done to 
some water supplies, despite all the assurances that it was totally 
safe. Don't let our food supply suffer the same fate by human 
manipulation through genetic tampering or unwise use of chemicals, 
however 'natural' it may presented. Please, I'm asking YOU to be the 
moral, ethical, and incorruptible government official who makes the 
difference.
                                 ______
                                 
                        Comment of Amy Anderson
    Date Submitted: Friday, May 18, 2012, 12:39 p.m.
    City, State: Saugerties, NY
    Occupation: Disabled
    Comment: We MUST move towards organic agriculture in order to 
survive on planet Earth: global warming has become an obvious reality 
and organic agriculture sequesters CO<INF>2</INF> while non-organic 
agriculture adds greatly to the CO<INF>2</INF> burden. For this reason 
I support the following:

  <bullet> Full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286);

  <bullet> Fully funding conservation programs such as the Conservation 
        Stewardship Program and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs;

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236); and

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you for your consideration.
                                 ______
                                 
                      Comment of Caroline Anderson
    Date Submitted: Wednesday, May 09, 2012, 7:58 p.m.
    City, State: Tucson, AZ
    Occupation: Diagnostic Medical Sonographer
    Comment: These last 4 years have been so incredibly difficult for 
so many, losing jobs and homes, and now we are left with so many more 
families of all kinds who are struggling to just survive from day to 
day. Please, while the rest of the country is getting back on their 
feet, don't forget those having the hardest time just trying to keep 
sustenance in their children's mouths until they can find a step up to 
more self-reliance. By passing the farm bill, we hold a helping hand to 
give those programs which help struggling families something to hang 
onto until they can again be productive themselves.
                                 ______
                                 
                      Comment of Carolyn Anderson
    Date Submitted: Friday, May 18, 2012, 2:15 p.m.
    City, State: Mt. Pleasant, SC
    Occupation: Interior Designer
    Comment: I want access to clean, unadulterated, organic food as a 
means by which to maintain my health and well-being. I also understand 
that Nature has ways of regaining balance that has been undone by 
monocultural farming, which tend to be devastating to human and other 
life. Therefore, I support independent, organic farming in which the 
care and nurturing of the soil is the best means by which to avoid 
pests and to grow the most abundant crops.
                                 ______
                                 
                   Comment of Christopher J. Anderson
    Date Submitted: Friday, May 11, 2012, 2:19 p.m.
    City, State: Madison, WI
    Occupation: Teacher
    Comment: Dear Farm Bill committee,

    I am writing to express my hope that you will improve the farm bill 
so that it better serves America's health and environmental needs. 
Programs that support projects to put more healthy foods in the hands 
of low-income income individuals (and really all families) demand 
support in the midst of an obesity epidemic that is taking a staggering 
tool on lives and our health care bills. At the same time, I hope 
you'll also support programs that provide training for current and 
aspiring farmers so that they can develop farming methods that reduce 
agriculture's environmental impacts. Without this piece we are taking 
great risks with our shortsightedness. Thank you for your time and 
attention.
            Sincerely,

Christopher J. Anderson,
High School Biology teacher.
                                 ______
                                 
                        Comment of Dae Anderson
    Date Submitted: Saturday, May 19, 2012, 10:09 p.m.
    City, State: Utica, NY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Please stop subsidies for Big Ag Commodity crops & offer 
more support for ``Specialty Crops'' (i.e., fruits and veggies). Do Not 
Allow a Cut to SNAP (food stamp) benefits. People are hungry and need 
more food money as prices are going up all the time. I am disabled and 
need this assistance. Please help support greater Conservation spending 
to protect our lands and waters and to heal the damage that has been 
done by corporate interests.
    Thank you Mr. Hannah.
                                 ______
                                 
                     Comment of Elizabeth Anderson
    Date Submitted: Friday, May 18, 2012, 12:12 p.m.
    City, State: Brooklyn, NY
    Occupation: Graphic Designer
    Comment: Living in an urban environment far removed from the 
production of the food that we eat, it is important to ensure that we 
have access to the best options for both consumers and producers alike. 
Reducing the gap from farm to table by supporting local farmers, and 
keeping that option affordable for all city-dwellers and not just the 
wealthiest, is essential.
                                 ______
                                 
                        Comment of Eric Anderson
    Date Submitted: Friday, March 23, 2012, 5:04 p.m.
    City, State: Viola, IL
    Occupation: Forestry Consultant
    Comment: I realize that shrinking Federal budgets will result in 
program cuts and reductions. I want to express how useful EQIP has been 
for so many landowners that just want to do the right thing. Please 
work to maintain funding for EQIP.
    I spoke briefly to Representative Schilling following the House Ag. 
Committee hearing in Galesburg. I wanted to give further feedback on 
EQIP (Environmental Quality Incentive Program), a program about which 
Rep. Schilling inquired. As a forestry consultant I have worked with 
the EQIP program since about 2007. Each year the program has been 
tweaked and improved by the NRCS to be evermore relevant to landowner 
needs. As a consultant I work with an ever growing number of private 
landowners (currently about 50) mostly in Illinois, but some in Iowa.
    In a recent conversation with two long-time timber buyers nearing 
the end of their careers, the discussion turned to the diminishing 
quality of hardwood timber in our region. They lamented landowners not 
planting trees 30 and 40 years ago on harvested timber property. The 
remaining trees, which were forgotten about and allowed to grow, were 
low quality or undesirable species (with some exception obviously). 
This low grade stock makes up much of the mature timber that present 
day landowners, interested in forest management, must nurse back to 
health.
    EQIP is helping make forestry sustainable in corn and soybean 
country. It off sets the cost of planning, planting new trees, managing 
invasive plants, and removing undesirable weed trees, mostly on non-
tillable acres. The short term effects of EQIP improve wildlife 
habitat, aesthetics and work to decrease erosion. Longer term, managed 
forestry will produce even better wildlife habitat and high quality 
forestry products.
    In the short term EQIP has created interest in managing and making 
more productive otherwise forgotten farmland and allowed me, as an 
entrepreneur, to take a passion for conservation that sprouted growing 
up on the farm in Kansas, matured through my time as a U.S. Peace Corps 
Volunteer, and blossomed into a job for myself, two full time employees 
and a number of seasonal employees, in a few short years.
                                 ______
                                 
                        Comment of Gail Anderson
    Date Submitted: Friday, May 18, 2012, 12:56 p.m.
    City, State: Roswell, GA
    Occupation: Retired
    Comment: It is difficult, at best, to comprehend that I am actually 
having to write a letter asking my government, the USA, to support the 
planting and harvesting of non poisonous food. Wouldn't you think this 
is a no brainer? No one, not even your Grandchildren, wants to eat 
foods that have been genetically altered and poisoned. How long can you 
sustain life while breathing, drinking and eating toxins? Please use 
your common sense and support H.R. 3286 and H.R. 3236, as well as fully 
funding the Conservation Stewardship Program. Also make sure that 
enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs. Last but not least, the EQIP 
Organic Initiative must be maintained. Please don't cut your noses off 
to spite your faces. Do this for the People!
                                 ______
                                 
                       Comments of Glen Anderson
    Date Submitted: Friday, May 18, 2012, 3:56 p.m.
    City, State: Lacey, WA
    Occupation: Retired Government Professional
    Comment: The farm bill must include:

  <bullet> Help for poor people in the U.S. And Also in other countries 
        to eat healthful, nutritious food.

  <bullet> Protection for consumers Against genetically modified food 
        and Against domination by large agribusiness corporations.

  <bullet> Protections for small family farms and organic farms.

  <bullet> Labeling of foods containing genetically modified 
        ingredients

  <bullet> Labeling of meat and poultry that came from ``factory 
        farms''

  <bullet> Vigorous Inspection of poultry by USDA officials, rather 
        than by poultry processing company employees.
    Date Submitted: Friday, April 27, 2012 11:06 a.m.
    Comment:

    (1) Protect environmental quality from destructive farming 
        practices (e.g., conserve soil, water, etc., limit pesticides).

    (2) Protect Small Family Farms from huge agribusiness.

    (3) Stop Subsidies to huge farming operations and to nasty crops 
        such as tobacco and sugar.

    (4) Protect Farm Workers from exploitation.

    (5) Stop Genetically Modified Crops.

    (6) Make school lunches Healthy And Nutritious without sugar and 
        junk food, but with fresh fruits and vegetables, and with whole 
        grains.
    Date Submitted: Wednesday, May 09, 2012 5:37 p.m.
    Comment: Fully Fund programs to help poor people, children, the 
elderly, and other vulnerable demographic groups. Fully Fund programs 
that protect the environment. Fully Fund programs that help Small 
Farmers and Organic Farmers. Stop Subsidizing Big Agribusiness, 
Polluters, etc.
                                 ______
                                 
                        Comment of Joy Anderson
    Date Submitted: Saturday, May 19, 2012, 10:18 p.m.
    City, State: Reno, NV
    Occupation: Yoga Instructor
    Comment: Get your heads out of your wallets and into the health of 
this and future generations, money means nothing if you do not have 
your health No more food devoid of nutrients!
                                 ______
                                 
                      Comment of Leonora Anderson
    Date Submitted: Friday, May 11, 2012, 7:40 a.m.
    City, State: Stockholm, NJ
    Occupation: Docent
    Comment: I urge you to support the farm bill. Many seniors need our 
help just to be able to put food on their tables. Our older Americans 
shouldn't have to choose between food or medication, or food and rent. 
Let's think of ALL seniors and care for them.
                                 ______
                                 
                      Comment of Marilyn Anderson
    Date Submitted: Saturday, May 19, 2012, 11:51 a.m.
    City, State: Mill Valley, CA
    Occupation: Bookkeeper
    Comment: We need to stop supporting big AG that uses pesticides and 
GMOs that are harmful to our health, and change focus to supporting 
local family farms that provide good healthy food. Subsidies for Big AG 
have to stop. Let's use that money instead to provide school lunch 
programs that teach kids healthy eating habits and in the long run cut 
our health care costs.
                                 ______
                                 
                        Comment of Mark Anderson
    Date Submitted: Saturday, May 19, 2012, 11:01 a.m.
    City, State: Bailey, CO
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Vegetables
    Size: Less than 50 acres
    Comment: Community and school greenhouses using hydroponic growing 
systems can be a profitable self sustaining way for communities to 
learn about the importance of locally grown organic produce. They do 
not require fertilizers, herbicides, pesticides or any other foreign 
chemicals an use less than 10% of the water required by traditional 
farming methods.
    For more information on the solution to our agricultural problems 
call Mark: [Redacted].
                                 ______
                                 
                     Comment of Nathanial Anderson
    Date Submitted: Friday, May 18, 2012, 2:13 p.m.
    City, State: La Crosse, WI
    Comment: Something is killing honey bees, and even as billions are 
dropping dead across the world, researchers are scrambling to find 
answers and save one of the most important crop pollinators on Earth.
    What is called ``colony collapse disorder'' hit bee keepers all 
over the world including \1/2\ of the U.S. last spring. Now it has 
spread to all but a handful of states.
    Hives can go from healthy and active to dead and gone.
    ``In the Australian story, researchers have dissected bees that 
have died, and they have found that their immune systems have ``totally 
gone to pieces''.'
    As the global collapse of honeybee populations threatens the 
sustainability of the world food supply, some European organizations 
are at least trying to do something about it. Today, Britain's largest 
agriculture co-op announced it would ban eight pesticides thought to be 
causing colony collapse disorder. (One of them is called imidacloprid.)
    In Germany's Baden-Wurttemberg state, 500 million bees died in 
Spring 2008, due to the insecticidal seed treatment agent clothianidin. 
Another example is the case of a Swabian beekeeper, who destroyed his 
whole honey harvest because it contained pollen of the GM corn MON810, 
after an administrative court declared the honey as `non marketable'.
    So far, there are few answers, but there is a long list of 
possibilities, which include pesticides and genetically modified crops, 
also known as GMOs or GMs.
    However, I have been learning that not much is known about the 
accumulating impact of pesticides on insects, animals and even people 
when you consider, in this modern world how many combinations of 
pesticides are used. One pesticide by itself might not destroy honey 
bees, but what happens when farmers spray herbicides, fungicides, 
insecticides and rodenticides on land that also has genetically 
modified crops with pesticides built-in?
    The United States grows nearly \2/3\ of all genetically engineered 
crops. Last year about 130 million acres were planted with GMs. Much of 
the soy, corn, cotton and canola have had a gene inserted into their 
DNA to produce pesticides systemically throughout the plants created 
and patented by Monsanto. Monsanto also produces genetically modified 
crops designed not to die when herbicides are sprayed on them. In a 
perfect biotech world, only the weeds would be killed. But Mother 
Nature has a way of outwitting human designs. So, now the weeds are 
becoming resistant to the herbicide sprays and frustrated farmers are 
putting on more and more poisons.
    What this genetically engineered trait does is allow a farmer to 
spray the herbicide right on the crop, which would have killed the 
crop, would kill the soybeans, prior to introduction of this gene. The 
gene comes from a type of bacteria that is found in the soil and it 
makes the plant immune to the herbicide.
    The consequence of this is that glyphosate and Roundup, which is 
sold by Monsanto--the same company that also sells the seed of the type 
of soybeans that are immune or resistant to the herbicide--that 
herbicide has become the most widely used herbicide in the world. The 
consequence of that is you have one particular herbicide used on a 
tremendous amount of acreage in the U.S. and elsewhere, especially 
Argentina and Brazil.
    As any biologist would expect, when you have such tremendous 
pressure on weeds to try to survive this herbicide, some of the weeds 
that are resistant are selected for and all their competition is killed 
off. The resistant weeds then proliferate and can no longer be 
controlled by glyphosate. Then you have a situation where the use of 
this herbicide has gone up, and on probably millions of acres, other 
herbicides are having to be used as well as glyphosate in order to 
control the resistant weeds.
    So, what we've been seeing in the past few years is that the 
overall level of herbicide use is increasing, and it will almost 
inevitably continue to increase. In this case, it's causing the rise of 
these resistant weeds and the increased use of herbicides and 
potentially, may be harming amphibians to boot.
    The active ingredient in Round-up is the isopropylamine salt of 
glyphosate. Glyphosate's mode of action is to inhibit an enzyme 
involved in the synthesis of the amino acids tyrosine, tryptophan and 
phenylalanine. It is absorbed through foliage and translocated (moves 
through plant sap) to growing points. Weeds and grass will generally 
re-emerge within one to 2 months after usage. Because of this mode of 
action, it is only effective on actively growing plants. Round-up is 
not effective as a ``pre-emergence herbicide.'' Monsanto also produces 
seeds which grow into plants genetically engineered to be tolerant to 
glyphosate which are known as Round-up Ready crops. The genes contained 
in these seeds are patented. Such crops allow farmers to use glyphosate 
as a post-emergence pesticide against both broadleaf and cereal weeds. 
Soybeans were the first Round-up Ready crop, which was produced at 
Monsanto's Agracetus Campus located in Middleton, Wisconsin. Current 
Round-up Ready crops include corn, sorghum, cotton, soybeans, canola 
and alfalfa.
    So here we have it: GMO's Round-up and other pesticides are killing 
our Bee's, without them the whole world will face starvation!
    It is the big pharmaceutical companies that need to be stopped. In 
the end, they will not only be killing bees, they will be killing us.
    It's time we do something!
    Kill the poison, save the Bees!
                                 ______
                                 
                      Comment of Raymond Anderson
    Date Submitted: Thursday, May 17, 2012, 3:04 p.m.
    City, State: Cottage Grove, MN
    Occupation: Lifetime Learner
    Comment: Eliminate competing objectives:

  <bullet> Cheap food that contributes to poor nutrition that leads to 
        poor health is not cheap.

  <bullet> USDA Organics permits additive (carrageenan) shown to cause 
        inflammation, diabetes, and neoplasia. Dr. Joanne K. Tobacman 
        is convinced beyond doubt that it should be eliminated from 
        food. Industry misrepresents the dangers and cannot be trusted.
                                 ______
                                 
                       Comment of Regina Anderson
    Date Submitted: Friday, May 11, 2012, 12:44 p.m.
    City, State: Portland, OR
    Occupation: Urban Planner/Project Manager
    Comment: It is critical that government programs provide a ``level 
playing field'' for those engaged in farming, so that small scale and 
sustainable (non-industrial method) farms can produce and allow farmers 
to make a good living. The benefits of small scale, sustainable farms 
to their communities, regional health (by providing very high quality 
product), and the environment (by providing food products closer to 
where they are consumed, cutting out ``food-miles'' travelled) are 
extremely important impacts that should not be overlooked. Please make 
sure the Farm Bill 2012 supports small scale, sustainable farming!
                                 ______
                                 
                       Comment of Robert Anderson
    Date Submitted: Thursday, May 17, 2012, 6:33 p.m.
    City, State: Decorah, IA
    Occupation: Biologist
    Comment: Please retain or expand conservation programs. With the 
current high price of corn at this time conservation and protection of 
soil is taking a back seat. We are losing waterway and buffer strips 
like mad. Iowa is taking on what could be called scorched Earth with 
little or no CRP or conservation programs. It is extremely depressing 
to see all conservation efforts being put under plow all for high 
fructose corn syrup and ethanol. Please retain conservation programs or 
better yet expand them. Again, it so very depressing to see all of the 
conservation efforts being pulled out all in the name of high corn 
prices. There is little or no CRP left in my area of NE Iowa. I am 
seeing many conservation efforts like waterways, buffer strips being 
plowed under for a product that has little to do with food for man.
                                 ______
                                 
                       Comment of Sharon Anderson
    Date Submitted: Friday, May 18, 2012, 1:49 p.m.
    City, State: Hammond, OR
    Occupation: Senior Citizen with Health/Nutrition Needs
    Comment: Please support all provisions of the Local Foods, Farms 
and Jobs Act (H.R. 3286) and implementation of all provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236).
    We in Clatsop County, OR have a great interest in developing a 
sustainable local food economy, with many young people starting up new 
farms. They face nearly impossible road blocks on a regular basis. 
Because they are not large enough to qualify as a ``small farm'' they 
cannot get reduced interest rates on loans to buy their land, which 
will cost one young couple an additional $89,000 in interest over the 
course of their 30 yr. loan.
    These people love farming more than anything else they've ever done 
in their entire life, they generously donate time and product to local 
food projects and represent a bright future for our area.
    Please help them.
                                 ______
                                 
                        Comment of Shel Anderson
    Date Submitted: Sunday, May 20, 2012, 7:27 p.m.
    City, State: Durham, NC
    Occupation: Retired
    Comment: I understand the value of corporate agriculture, but I do 
not want it to be the only option in our country. Having good 
conservation policy; having opportunity for young farmers to enter the 
occupation; providing for farmers' markets and grants to small 
producers to get extra value for their crops; supporting the organic 
farms; and making sure that all agricultural investments by taxpayers 
do NOT go to large corporations--these are my concerns.
                                 ______
                                 
                       Comment of Sylvia Anderson
    Date Submitted: Saturday, May 19, 2012, 3:33 p.m.
    City, State: Albuquerque, NM
    Occupation: Retired
    Comment: Subsidies and supports for Organic growers. No subsidies 
or support for growers or producers using government land grazing, 
chemicals, hormones or GMO products.
                                 ______
                                 
                       Comment of Corlissa Andis
    Date Submitted: Friday, May 18, 2012, 3:13 p.m.
    City, State: Fremont, CA
    Occupation: Hairstylist
    Comment: We need balance.
    These gigantic ag-farms are a nightmare environmentally. This bill 
needs to encourage new farming, local farming & organic farming. Do you 
realize many kids don't know that carrots & potatoes grow in the 
ground? This is a very noble profession. Community gardens & education 
are important for our children to experience the importance of farming 
& feeding the world.
                                 ______
                                 
                       Comment of Darian Andreas
    Date Submitted: Saturday, May 19, 2012, 10:28 a.m.
    City, State: Falls Church, VA
    Occupation: Health/Education
    Comment: Dear Congressman Moran,

    I am very concerned that reforms in Agribusiness may take this 
country several steps backward. Insurance subsidies should only be 
provided to those who meet a minimum conservation standard, and we need 
more, not less, incentive for new small farmers who use sustainable 
farming methods. I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                      Comment of Caroline Andrews
    Date Submitted: Friday, May 18, 2012, 4:14 p.m.
    City, State: Fullerton, CA
    Occupation: Retired Teacher
    Comment: The government subsidies and support for big agriculture 
have been a big part of the obesity epidemic in this country, with 
hybridized staples and processed food full of additives like high 
fructose corn syrup becoming the standard diet of so many Americans. 
It's times to focus support on organic farmers who grow healthy food so 
that Americans will have a healthy choice.
                                 ______
                                 
                        Comment of David Andrews
    Date Submitted: Tuesday, March 20, 2012, 6:10 p.m.
    City, State: Lubbock, TX
    Occupation: Disabled
    Comment: It is time for the Farmers of America to stand on their 
own 2 feet just like everyone is expected to do. We are not guaranteed 
a wage amount, so nor should the farmers that think they have to have 
brand new tractors and equipment every year or so. I know a lot of 
farmers as I have grown up around farmers all my life, and they do not 
need my taxpayer money to make a living. I am sick and tired of 
supporting millionaires, I also think we need to do away with the CRP 
Program, which only pays people to own land. I had to buy my land 
without any assistance, so I expect people that own land to have to pay 
for it just as I had to.
                                 ______
                                 
                       Comment of Elaine Andrews
    Date Submitted: Saturday, May 19, 2012, 12:09 a.m.
    City, State: Boulder, CO
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: I believe that the future of food security in this country 
and the ability of global agriculture to feed the world's people rest 
with local farmers selling directly to their communities and a plethora 
of small, biodiverse, independent farms engaged in adapting creatively 
to changing climatic conditions. This is in contrast to the current 
trend of relying more and more on industrialized agriculture. 
Vulnerable monocultures, and high-tech chemicals and practices. Please 
include in future agricultural legislation, clear support for research 
in organic and low-tech farming practices and the removal of obstacles 
making it difficult for small farmers to make a go of it.
                                 ______
                                 
                       Comment of Yvonne Andrews
    Date Submitted: Friday, May 18, 2012, 6:26 p.m.
    City, State: Limington, ME
    Occupation: Lic. Vet Tech
    Comment: I do not want to eat GMO products, I buy organic seedlings 
for my garden when I don't start my own seeds, try not to eat too many 
prepared foods that are not organic and encourage my friends and family 
to do the same, we need your help!
    Thanks.
                                 ______
                                 
                          Comment of Jan Angel
    Date Submitted: Saturday, May 19, 2012, 10:37 a.m.
    City, State: Littleton, CO
    Occupation: Educator
    Comment: There is a gap growing that can lead to a complete closure 
of communication between the political representatives and the 
intelligent constitutes that they represent. Just because large 
quantities of the educated populace have not chosen to go into politics 
as a career it does not mean that they are not informed or action 
oriented. The intelligent and educated factions are indeed aware of the 
manipulation of our food quality by those who seek to ignorantly make a 
greedy profit by growing chemically toxic produce. This continued 
practice will eventually lead to the downfall of these corporate 
practices. There might be the belief that politicians are the most 
educated and powerful. Yet the fact remains that if enough educated and 
concerned citizens want healthy food . . . there is nothing that can 
stop that from happening here in the U.S. We are at that point. Please 
step up to this and set up a structure that defends American health and 
well being and turns away from corporate farming practices that are 
based upon the least intelligent and obviously lowest self serving 
motives.
                                 ______
                                 
                        Comment of Donald Angell
    Date Submitted: Saturday, May 19, 2012, 1:35 a.m.
    City, State: Battle Creek, MI
    Occupation: Retired
    Comment: I urge you to pass a farm bill that strongly supports 
local, small, family farms. Agribusiness is about profits, not healthy, 
safe food, humane treatment of animals, and protection of the 
environment. Do you job to support the thousands of small farmers who 
you represent, not the handful of agribusinesses that throw money at 
you. Remember who you work for!
    I support:

  <bullet> the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Karen Angstadt
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Port St. Lucie, FL
    Occupation: Homemaker
    Comment: I support the following initiatives for the farm bill:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

    It is essential that agriculture policies adapt to the most urgent 
needs of the American people--even if they negatively impact large 
industrial agribusiness. The American people need access to more 
affordable vegetables and fruits and less over-subsidized and over-
processed grains.
    I understand that funds are scarce and this is why I ask you to put 
the needs of the American people ahead of the interest of industrial 
farming corporations.
    In the interest of improving our health and nutrition, the desire 
to reduce obesity and new cases of type 2 diabetes, and the opportunity 
to support best practices for growing more nutritious foods, Please 
overhaul where the money goes. Support the needs of the people who are 
eating.
                                 ______
                                 
                     Comment of Natalie Angstreich
    Date Submitted: Tuesday, May 15, 2012, 12:00 p.m.
    City, State: New York, NY
    Producer/Non-producer: Producer
    Type: Field Crops, Forestry, Fruits, Greenhouse/nursery, Nuts, 
Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: As an urban grower and educator in nutrition and health, 
it is essential to keep the funding lines for nutrition and nutrition-
education programs supported.
    Any cuts to SNAP are unacceptable, as they are the only systemic 
address of gross income inequality as it manifests in food insecurity. 
Otherwise we are starving the poor, what's that for compassion?
    Please support the following:

  <bullet> Community Food Projects Program--$10 million per year to 
        help communities build food self-reliance.

  <bullet> Farmers Market and Local Food Promotion Program--$20 million 
        per year to develop farmers market capacity and create food 
        hubs to connect farmers with schools, hospitals, grocery stores 
        and other markets.

  <bullet> Hunger-Free Community Incentive Grants--An average of $20 
        million per year for a new SNAP local fruit and vegetable 
        incentive grant program at farmers markets and other healthy 
        food retailers.

    This is the LEAST allocation for healthy food, instead of 
commodities that are pushed on the American public, fueling heart 
disease, obesity, and diabetes.
    It's time to put our farm subsidies, IF ANY, where they belong: on 
fresh fruits and vegetables and nuts and seeds: Real Nutrition.
                                 ______
                                 
                       Comment of Jennifer Anson
    Date Submitted: Saturday, May 19, 2012, 4:55 a.m.
    City, State: Gilbert, AZ
    Occupation: Registered Nurse
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Please do not cut organic research and support for beginning 
farmers. I know how much better I feel when I eat organic and as a 
citizen feel this is too important of an area to cut funds from. It is 
bad enough GMO's are not labeled but to take funding away from our 
healthy options as citizens should not be allowed and I should have a 
right to voice supporting funding to the health of myself and family. 
Our children are not science experiments and healthy alternatives to 
biotech need to be available and supported.
            Sincerely,

Jennifer Anson.
                                 ______
                                 
                       Comment of Cheryl Anthony
    Date Submitted: Thursday, May 10, 2012, 11:12 a.m.
    City, State: Fayetteville, GA
    Occupation: Unemployed
    Comment: America cannot afford to cut food stamp benefits! So Many 
people are still out of work, and barely able to survive. Perhaps the 
approval process for receipt of food stamps needs to be re-vamped to 
ensure that only those people who are in dire straights receive them, 
but cutting food stamps for those who depend in them for their survival 
would be devastating for many, many Americans.
                                 ______
                                 
                        Comment of Jamie Antone
    Date Submitted: Friday, May 18, 2012, 3:32 p.m.
    City, State: Houston, TX
    Occupation: Retail
    Comment: I support an Organic Farm Bill to stand up for farmers, 
eaters and the environment.
    If Congress and the current Administration are serious about the 
health of America's citizens, our environment and the economic 
viability of independently owned family farms, they will:
    Implement a $25 billion plan to transition to organic food and 
farming production, to make sure that 75 percent of U.S. farms are 
U.S.D.A. organic certified by 2025.
    Feed organic food to all children enrolled in public school lunch 
programs by the year 2020.
    Pass a Beginning Farmer and Rancher Bill to place a million new 
farmers on the land by 2020.
    Link conservation compliance with government-subsidized insurance 
programs and create a cutoff so each farm receives government funds for 
land only up to 1,000 acres.
                                 ______
                                 
                         Comment of Beth Appel
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: Chicago, IL
    Occupation: Rabbi
    Comment: We need a farm bill that supports sustainable agriculture. 
We need a farm bill that helps the neediest of this country's citizens 
with SNAP benefits. We need a farm bill that prioritizes the production 
and distribution of healthy foods.
                                 ______
                                 
                   Comment of Sally Applegate-Rodeman
    Date Submitted: Thursday, May 17, 2012, 12:15 p.m.
    City, State: Indianapolis, IN
    Occupation: Retired Teacher
    Comment: Dear Representative Burton,

    As your constituent, I favor a farm bill which makes healthy and 
even organic food widely available to Americans. I would like the bill 
to support the family farmer and the next generation of farmers. The 
bill needs to support farming while protecting the American 
environment. No special subsidies or incentives need be given to large 
agribusiness concerns such as Monsanto or Bayer. I support the Organic 
Agriculture Research and Extension Initiative and the Beginning Farmer 
and Rancher Development Program. Both are relatively inexpensive to 
fund, at $30 million and $25 million respectively, and would do much to 
improve America. Thank you.
                                 ______
                                 
                        Comment of Lisa Arbuckle
    Date Submitted: Friday, May 18, 2012, 5:54 p.m.
    City, State: Gilbert, AZ
    Occupation: Healthcare
    Comment: Mr. Flake:

    We cannot allow programs for healthy and organic grains, fruits & 
vegetables to be cut. These are exactly the programs that need to have 
additional funding. If you want to take money OUT of the budget--take 
it from big ag corporations like Monsanto that have killed our soil and 
have stolen the soul from the farming industry.
    These big ag companies make billions of dollars a year. WHY are we 
paying them subsidies? They should be paying all of us in order to 
subsidize our health care costs for their poisonous products.
    Make no mistake, the politicians who are supporting the big ag 
monster will not keep their jobs in the next election. The veil has 
been lifted and it's time our politicians are held accountable for 
their greed and corrupt dealings.
    I fully support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Do The Right Thing. Stand up for People and stand up for our future 
on this planet.
                                 ______
                                 
                         Comment of Lisa Arends
    Date Submitted: Friday, May 18, 2012, 11:38 p.m.
    City, State: Brooklyn, CT
    Occupation: Manager
    Comment: Please:

  <bullet> Protect our food chains, streams and environment.

  <bullet> Protect and encourage locally grown organic farming.

  <bullet> All human beings should have access to natural foods free of 
        pesticides, chemicals and genetic modifications.

  <bullet> All food should be properly labeled to allow consumers to 
        make informed choices to protect themselves from allergic 
        reactions and cancer causing food additives.

  <bullet> Fully fund conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

  <bullet> Fully fund local agriculture initiatives.

  <bullet> Allow local food processing facilities to minimize 
        nationwide Salmonella & other food borne illnesses.

  <bullet> Implement Beginning Farmer and Rancher Opportunities.

  <bullet> Maintain Organic Initiatives.

  <bullet> Endorse honest labeling for all food.

  <bullet> Mandate farm to school initiatives to get locally produced 
        healthy fruits & vegetables in the hands & mouths of our school 
        children.
                                 ______
                                 
                        Comment of Robert Argue
    Date Submitted: Friday, April 27, 2012, 9:16 a.m.
    City, State: Bridgman, MI
    Occupation: Nonprofit Coordinator
    Comment: TEFAP and SNAP are sometimes the only way that children, 
low-income parents and senior citizens have anything to eat during the 
day. Do not cut these programs.
                                 ______
                                 
                          Comment of Alto Arie
    Date Submitted: Sunday, May 20, 2012, 12:37 p.m.
    City, State: Cranston, RI
    Occupation: Musician
    Comment: Yo, I think that the way our food is produced is whack. 
There are chemicals in everything from garlic to grape fruit! I 
honestly feel that we should stop all use of pesticides and other crazy 
stuff I don't even know about. I am a compassionate Vegan and know that 
the dairy-egg-meat industry is ruining the world as we know it and 
greatly damaging our health! I think that farmers markets are good 
because they grow locally and build communities . . . Plus they are 
good for the economy because people can use food stamps to buy 
vegetables and fruits . . . This message is meant to support the House 
Agriculture Committee and hopefully inspire people to partake in wiser 
and more reasonable practices regarding the cultivation, distribution 
and promotion of whole organic plant based food sources. If you agree 
you have my support 110%.
            Be Vegan Make Peace,

Mr. Alto Arie.
                                 ______
                                 
                       Comment of Shivani Arjuna
    Date Submitted: Sunday, May 20, 2012, 11:20 p.m.
    City, State: Belgium, WI
    Occupation: Wellness Consultant
    Comment: We need REAL reform. Please support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    It would be a terrible mistake to cut $33 billion from the food 
stamp program while leaving farm subsidies unscathed and/or spending 
$33 billion to guarantee the income of profitable farm businesses.
    Cutting funding for organic research and Beginning Farmers is 
another terrible idea.
    While getting rid of direct payments to commodity farmers, the 
subsidized insurance program proposed to replace that would allow giant 
commodity farmers and insurance companies to walk away with billions in 
taxpayer dollars while putting the land, soil and environment at 
greater risk.
    We need Real reform!
                                 ______
                                 
                         Comment of Andrew Arlt
    Date Submitted: Friday, May 18, 2012, 10:12 a.m.
    City, State: St. Paul, MN
    Occupation: Teacher (Science)
    Comment: As an environmental and science educator in a low-income, 
high-needs alternative school, I have seen the effect that limited food 
resources for things like school lunch and community food access 
programs can have on children and families.
    Nutrition programming for schools and communities must be stepped 
up if we are going to be able to provide a skills-based change for 
hunger. Money for school garden initiatives, community gardening 
programs, and local or urban farms must be a priority over subsidizing 
and supported agribusiness.
    By returning money from corporate agribusiness and reallocating 
funds towards smaller scale, family operations, we will be providing 
jobs, stability, and food security for a new generation of farmers--
even for those with no family history of farming.
    Please help redistribute and fund the local farm and food system in 
America!
            Sincerely,

Andrew Arlt.
                                 ______
                                 
                         Comment of Casey Arman
    Date Submitted: Saturday, May 19, 2012, 10:57 a.m.
    City, State: Waitsfield, VT
    Occupation: Interior Design and Sales
    Comment: Please stop supporting and subsidizing big business farms 
and predatory corporations like Monsanto. I believe your support and 
funding should instead be directed at supporting smaller, locally and 
family owned agricultural producers, especially those that operate 
using environmentally friendly, sustainable farming practices and 
organic growing methods.
                                 ______
                                 
                         Comment of Ken Armijo
    Date Submitted: Thursday, April 12, 2012, 7:07 p.m.
    City, State: Bosque, NM
    Occupation: Farmer
    Comment: I participate in a food drive every month through the 
Saint Vincent de Paul Society and the New Mexico Roadrunner Food Bank. 
We donate food for over 100 families living in poverty conditions. The 
food we donate is mere subsistence that these hard-working folks from 
Veguita, Las Nutrias and La Joya, New Mexico depend on. Please do not 
let the TEFAP food fund decrease again. We need this fund.
                                 ______
                                 
                     Comment of Katharine Armstrong
    Date Submitted: Friday, May 18, 2012, 7:16 p.m.
    City, State: Denver, CO
    Occupation: Urban Forager
    Comment: Let's support the small sustainable family farms and let 
the big AgBiz fend for themselves. I do not want my tax dollars to go 
for the producers of toxic food-like substances. I want to support the 
healthiest ways of producing foods, including healthy for the 
environment and the soils.
                                 ______
                                 
                       Comment of Robin Armstrong
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: Glastonbury, CT
    Occupation: Taxpayer
    Comment: It is absolutely Criminal that our government allows big 
agribusiness to poison our food supply without giving the people so 
much as a warning. If GMO foods were as good as the real thing, 
corporations should have no issue with simply labeling them. By the 
fact that Monsanto threatens to sue the state of Vermont for requiring 
labeling is a clear indication that GMO's are poison. Organic farming 
can not be threatened by corporate greed. Wake Up and do what is right 
for the human race--require GMO farming to be completely isolated so it 
does not contaminate the Earth, allow organic farmers to sue 
agribusiness for crop contamination if GMOs are not contained, force 
agribusiness to pay for the environmental destruction they have caused, 
just like big oil and tobacco, and most of all require GMO foods to be 
Labelled so that we can make a democratic Choice!
                                 ______
                                 
                      Comment of Stanley Armstrong
    Date Submitted: Friday, May 18, 2012, 1:28 p.m.
    City, State: Martinez, CA
    Occupation: Hardware Store Sales
    Comment: Please consider our agriculture future as a gold mine. Our 
agriculture needs to keep us strong and healthy. We need to eliminate 
toxins from our foods. We need to be responsible with our soil for 
future generations to survive.
                                 ______
                                 
                       Comment of Susan Armstrong
    Date Submitted: Sunday, May 20, 2012, 7:57 a.m.
    City, State: Hackettstown, NJ
    Occupation: Writer
    Comment: Organic farming is crucial to the health of our country 
and planet. It is a crime that the food supply, obviously essential to 
life, is in the hands of chemical companies like Monsanto, a creator of 
agent orange and other deadly products. Small sustainable farms, run by 
farmers who respect and understand the land as a living organism should 
be supported, not criminalized. Many countries do not even allow GMO's 
yet in the so called land of the free, we are fighting for the simple 
right to label these poisons.

        ``A society that no longer recognizes that Nature and Human 
        Life have a sacred dimension and an intrinsic value beyond a 
        monetary value commits collective suicide.'' Hedges

    Thank you and please allow your humanity to speak instead of your 
bottom line.
                                 ______
                                 
                     Comment of Vivienne Armstrong
    Date Submitted: Wednesday, April 11, 2012, 5:31 p.m.
    City, State: Dallas, TX
    Occupation: Registered Nurse
    Comment: I am a registered nurse at The Visiting Nurse Association 
of Texas. I see senior citizens struggling to meet their daily 
nutritional needs. I recall some who have gotten only a sack of potato 
chips and a can of high sodium soup from a food bank! With traditional 
food streams declining, the area agencies continue to find it difficult 
to meet the needs of our community, despite the improvement of the 
economy. We need a strong farm bill to make sure that we can put food 
on the table for those that are still struggling. I ask that you pass a 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. These programs are a lifeline to people struggling with hunger in 
your district, and I urge you to make them a priority in the next farm 
bill.
                                 ______
                                 
                       Comment of Wanda Armstrong
    Date Submitted: Tuesday, May 08, 2012, 2:35 p.m.
    City, State: Orlando, FL
    Occupation: Supportive Housing Specialist
    Comment: I help a great deal of homeless in the Orange County area. 
I would hate to know that food is not available for most of them to 
eat. Without TEFAF foods I know we could not stay open for them.
                                 ______
                                 
                         Comment of Gail Arnold
    Date Submitted: Friday, May 18, 2012, 8:02 p.m.
    City, State: Watertown, MA
    Occupation: School Teacher
    Comment: Dear Representative Markey, I had the pleasure of meeting 
you at an event with Nancy Pelosi 2 weeks ago.

    I won't take much of your time, but I do hope that you support the 
farm bill, particularly the need to support small farmers and to 
consider the nutritional needs of children and allow substantial 
funding for programs that promote healthy food choices for children 
(and adults).
    Thank you,
            Sincerely,

Gail Arnold.
                                 ______
                                 
                        Comment of Laura Arnold
    Date Submitted: Friday, May 18, 2012, 1:29 p.m.
    City, State: San Diego, CA
    Occupation: Business Owner--Recruiting
    Comment: Citizens need to have the right to know what they are 
eating and have a choice to purchase `certified' Organic without 
exposure to GMO contamination.
                                 ______
                                 
                          Comment of Matt Arns
    Date Submitted: Friday, May 18, 2012, 2:17 p.m.
    City, State: Evans, CO
    Occupation: Analyst
    Comment: The farm bill should be used to help local farmers produce 
enough food to sport their communities, not to subsidize monopolistic 
multibillion-dollar agribusiness giants that are more interested in 
magnifying the petrochemical market than in actually producing food of 
the quality and quantity needed to sustain the American people, while 
also keeping our land fertile and sustainable for future generations.
                                 ______
                                 
                        Comment of Adam Aronson
    Date Submitted: Friday, May 18, 2012, 1:54 p.m.
    City, State: New York, NY
    Occupation: Education Professional
    Comment: It is important to me that the value of organic farming be 
recognized in the next version of the farm bill. It will not only help 
promote small farmers for making a sustainable wage, but also ensure 
healthier options for families.
                                 ______
                                 
                         Comment of Nancy Arpin
    Date Submitted: Sunday, May 20, 2012, 9:15 a.m.
    City, State: Ludlow, MA
    Occupation: Information Technology Analyst
    Comment: The time has come to truly reform our farming industry in 
the U.S. it is a sad state when I would feel more comfortable feeding 
my children food from other countries because I know that they require 
clear labeling identifying important information about the food, such 
as containing GMO's.
    Our government makes decisions that are in the favor of giant 
lobbyist agriculture biotech companies when it should be acting on 
behalf of its citizens. Anyone in their right mind can understand that 
a chemical company should not be leading our farming industry. It 
doesn't make sense.
    It is also sad to know that in order to feed my family food that 
will not keep me awake at night means that I have to put myself into 
the poor house to purchase pricey organic foods. We should be 
supporting organic farming methods, not methods that are laden with 
pesticides, herbicides, and all the like, that are putting our health, 
our children, and our environment at detrimental risk!
    Please do the right thing.
                                 ______
                                 
                        Comment of Melissa Arra
    Date Submitted: Friday, May 18, 2012, 9:24 a.m.
    City, State: Brooklyn, NY
    Occupation: Freelance Artist
    Comment: I would like to see greater support for small and mid-
sized farms, especially those producing organic foods and practicing 
sustainable farming methods.
    I would like to see fewer subsidies going to large agri and factory 
farms and more subsidies going to smaller farms--family owned and 
cooperatives.
    I'd also like increased support for our farmers using less 
pesticides/herbicides and chemicals. I believe these farmers are 
producing healthier more nutritious foods and ensuring a cleaner planet 
that will sustain generations to come versus. contributing to the 
overwhelming amount of chemicals that are currently used in many 
farming practices.
                                 ______
                                 
                         Comment of Alice Artzt
    Date Submitted: Friday, May 18, 2012, 11:49 a.m.
    City, State: Princeton, NJ
    Occupation: Classical Musician
    Comment: Stop letting farmers use pesticides that are killing bees 
and other pollinators. Stop the use of GMO crops--or at least label 
them so we can avoid eating toxic stuff. Stop feeding GMO crops to farm 
animals rendering them unfit to eat also. Stop helping and subsidizing 
big factory farmers and start helping the little organic family farms.
                                 ______
                                 
                      Comment of LTC Mark Arvidson
    Date Submitted: Saturday, May 19, 2012, 1:24 a.m.
    City, State: Eagle River, AK
    Occupation: Retired Army, Building Home/Landscape
    Comment: As a former emergency preparedness officer (WMD-CST) for 
the U.S. Army, and an agricultural advocate, I firmly believe the U.S. 
should ensure that food security is a priority. This is especially 
important here in Alaska, where we support local agricultural 
initiatives such as Alaska Grown, local farmers' markets, urban 
agriculture and the recent initiatives in Fairbanks such as Resilient 
Alaska and vertical farming. It is critical to maintain biodiversity 
and to shorten the distance from farm to table.
            Kind Regards,

Mark Arvidson, Lieutenant Colonel, U.S. Army (Retired).
                                 ______
                                 
                        Comment of Elicia Arwen
    Date Submitted: Friday, May 18, 2012, 2:05 p.m.
    City, State: Boulder, CO
    Occupation: Psychotherapist
    Comment: I believe small organic farms should be encouraged and 
supported by the United States government. Organic and sustainable 
farming should be the future of farming in this country. Beginning 
farmers practicing organic and sustainable farming should also be 
supported.
                                 ______
                                 
                        Comment of Jasmin Arzate
    Date Submitted: Wednesday, April 11, 2012, 4:04 p.m.
    City, State: Albuquerque, NM
    Occupation: School Counselor
    Comment: Our school's population is a very high-needs and poverty 
is a huge issue; the roadrunner food boxes have been a huge benefit to 
our students and it would be a tremendous loss to not receive them 
anymore or even to cut the amount we receive--many students do not have 
food in the house and rely on the meals at school for nourishment; the 
food boxes allow them to have something to eat, while their parents (if 
in the picture) can focus their funds on paying rent or utilities. 
Please do not consider decreasing the funding to the Roadrunner Food 
Bank--they serve a huge population that many benefit from!
                                 ______
                                 
                       Comment of John Asadourian
    Date Submitted: Friday, May 18, 2012, 2:00 p.m.
    City, State: Prescott, AZ
    Occupation: Carpenter
    Comment: In order to make no-till agriculture work, you have to get 
the feedback from those in the industry who are applying the chemicals 
and know from their own health concerns, there must be other options. 
By enhancing soil bacteria with fulvic and humic acid, the no-till soil 
approach can still work but with a sustainable spin. Whomever in the 
House is looking at these comments, do you feed your family only 
organic produce and meat products? Thanks for your time.
                                 ______
                                 
                         Comment of Muareen Ash
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: River Falls, WI
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: I continually hear that organic agriculture is inefficient 
and cannot feed the world. Conventional agriculture is not doing it, 
either. Why is it so heavily subsidized through research institutions 
such as our local college? We organic farmers had to teach each other. 
That is just one way in which industrial ag gets a break.
                                 ______
                                 
                        Comment of Evelyn Asher
    Date Submitted: Friday, May 18, 2012, 8:39 p.m.
    City, State: Bloomfield, NY
    Occupation: Health Care
    Comment: Continuing to force-feed Americans herbicide and pesticide 
laden produce, devoid of essential nutrients, and meats loaded with 
antibiotics, hormones and other toxic ingredients, while harassing 
farmers who produce healthy, clean and nutrition foods is a criminal 
act beyond imagination. If enemies were sneaking these toxic 
ingredients into our food supply, it would be considered a terrorist 
act, so why should our own industrial farmers be allowed to make us all 
sick? If you don't start protecting Americans from the travesty of 
industrial farming, Americans will not have much of a future. We Need 
Sustainable, Chemical-Free Agriculture. Protect Our Small Farms From 
Monsanto And Other Big-Ag Bullies!
    American Consumers Want Clean Nutritious, Organic Food And ``Yes'' 
It Is Possible To Produce This On A Large Scale. The World Health 
Organization Agrees. Check It Out!
                                 ______
                                 
                       Comment of Margaret Ashley
    Date Submitted: Friday, May 18, 2012, 4:30 p.m.
    City, State: Cambridge, MA
    Occupation: Nurse
    Comment: Please support small family farms and organic farms. 
Support programs that teach children and parents about good nutrition 
and fresh whole foods.
                                 ______
                                 
                       Comment of Gerrard Ashton
    Date Submitted: Saturday, May 19, 2012, 4:11 p.m.
    City, State: Everett, WA
    Occupation: Unemployed
    Comment: There is absolutely no doubt that America is in the worst 
health crisis this world has ever seen--with preventable diseases. With 
highly processed, high calorie, nutritionally bankrupt foods, you will 
never solve this problem. Also, more drugs, more research and surgeries 
will never solve the problem. People don't have medication 
deficiencies, they do have nutritional deficiencies. The only way to 
ever get ahead of it, is with locally grown, fresh, Affordable 
unprocessed organic food. Every family I talk to tells me that produce 
is too expensive, they end up feeding their family 6 days a week at 
fast food restaurants. Yes, pretty much all of them are overweight and 
suffering health problems. I ask them if produce and whole food were 
more affordable if they would change their diet, and every one of them 
says yes.
    We need to get every American off the S.A.D. (standard American 
diet) diet!
                                 ______
                                 
                       Comment of Janice Ashwood
    Date Submitted: Friday, May 18, 2012, 3:58 p.m.
    City, State: Vermont, IL
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock
    Size: 1,000+ acres
    Comment: I am in total agreement with Agriculture Secretary Tom 
Vilsack. Agrinews (May 18, 2012) He is talking about the tremendous 
opportunities agriculture presents ``there's no better calling to be 
able to improve the environment of this country, to make sure we 
continue to have the soil that allows us to have this rich diversity of 
agricultural production, to be able to clean up the waters of our 
country . . . .''
    When writing this farm bill consider our environment, our soil and 
most of all, our most precious commodity, our water.
                                 ______
                                 
                        Comment of Michael Askew
    Date Submitted: Friday, May 18, 2012, 4:49 p.m.
    City, State: Dallas, TX
    Occupation: Marketing Professional and Organic Consumer
    Comment: Please support the crucial area of organic farming and 
produce. Do not cut research or other funding for this as it is crucial 
to our generation and the next ones.
    Thank you.

Michael Askew.
                                 ______
                                 
        Submitted Statement by Association of Kansas Food Banks
    Chairman Lucas and Ranking Member Peterson, thank you for the 
opportunity to submit this statement for the record on behalf of the 
Kansas Food Bank, Harvesters--The Community Food Network and Second 
Harvest Community Food Bank, which are the Feeding America food banks 
serving Kansas.
    On behalf of the nearly 200,000 Kansans we serve each year, we urge 
you to protect and strengthen Federal nutrition programs in the 
upcoming farm bill
    Our three food banks collectively serve every county in the state. 
We represent the state's network of emergency food providers, which 
includes nearly 400 emergency food pantries, soup kitchens and 
shelters. We serve nearly 200,000 people in need in Kansas annually and 
work closely with Kansas' farmers, processors, retailers, schools, 
churches, community organizations, and the public sector to meet the 
needs of the hungry in our state.
    The demand for food assistance has increased significantly during 
the recession, and Kansas' network of food banks, church pantries, soup 
kitchens and other local agencies are stretched thin trying to keep up 
with requests for assistance. Our three food banks and our local 
partner agencies have seen a significant increase (approximately 40%) 
in the number of people turning to our network for assistance since 
2008. Many of us are barely able to keep up with current demand, let 
alone serve even more people seeking food for their families if they 
lose Federal nutrition assistance.
    Federal nutrition programs provide a lifeline for low-income 
families struggling to make ends meet. Local charities could not 
provide current levels of food assistance without support from The 
Emergency Food Assistance Program (TEFAP) and the Commodity 
Supplemental Food Program (CSFP). In addition to emergency feeding, 
many of us also work to connect eligible clients with the Supplemental 
Nutrition Assistance Program (SNAP) when they are in need of more than 
the short-term, emergency food assistance we provide. We suggest the 
following in the 2012 Farm Bill:

    Policy Recommendations:

    The Emergency Food Assistance Program (TEFAP): TEFAP is a means-
tested Federal program that provides food commodities at no cost to 
Americans in need of short-term hunger relief through organizations 
like food banks, pantries, soup kitchens, and emergency shelters. 
Nutritious food commodities provided through TEFAP are an essential 
resource for Feeding America food banks. As the demand for food remains 
high at food banks across the country, a continuous stream of TEFAP 
commodities is necessary for the provision of a steady emergency food 
supply.

  <bullet> TEFAP commodities account for approximately 25% of the food 
        moving through Feeding America food banks. Food banks combine 
        TEFAP with private donations to maximize TEFAP benefits far 
        beyond the budgeted amount for the program. In this way, food 
        banks exemplify an optimum model of public-private partnership.

  <bullet> TEFAP has a strong impact on the farm economy. According to 
        the USDA's Economic Research Service, producers of commodities 
        provided as bonus TEFAP (those purchased by the USDA to 
        intervene in weak agricultural markets) receive an estimated 
        85 cents per dollar of Federal expenditure. Producers of other 
        commodities provided through TEFAP receive about 27 cents per 
        dollar. By contrast, only about 16 cents of every retail food 
        dollar goes back to the farmer.

  <bullet> Declines in Section 32 funding and strong agriculture 
        markets resulted in a nearly 30% decline ($173 million) in 
        TEFAP purchases during FY 2011. This decline is expected to 
        continue in FY 2012 as food banks struggle to meet increased 
        need. The shortfall between supply and demand will only worsen 
        when the SNAP ARRA benefit boost expires, as many participants 
        turn to food banks to make up for the reduction in benefit 
        levels.

  <bullet> TEFAP Administrative funding supports the storage, 
        transportation and distribution of TEFAP commodities, providing 
        food banks and partner agencies with the resources to get 
        emergency food assistance to those in need. Fuel prices 
        increased by 26.4% in 2011, on top of an 18.4% increase in 
        2010, significantly increasing the costs of transporting and 
        distributing commodities and decreasing the purchasing power of 
        these funds.

  <bullet> As food banks serve a growing number of clients, TEFAP 
        Infrastructure Grants support the infrastructure needed to 
        ensure effective and efficient delivery of TEFAP foods. In FY 
        2010, USDA had at least four times as many applicants for these 
        grants as they had funding to award, demonstrating the need for 
        infrastructure support.

    Farm Bill Priorities for TEFAP:

  <bullet> Increase funding for mandatory TEFAP to better reflect the 
        need for emergency food assistance.

  <bullet> Clarify the Secretary of Agriculture's authority to purchase 
        bonus commodities in times of high need for emergency food 
        relief in addition to times of low commodity prices so the 
        program is responsive both to excess supply and excess demand.

  <bullet> Reauthorize funding for TEFAP Administrative funding at $100 
        million per year and rename it TEFAP Storage and Distribution 
        Funds to accurately reflect the funding's purpose.

  <bullet> Reauthorize funding for TEFAP Infrastructure Grants at $15 
        million per year.

    Supplemental Nutrition Assistance Program (SNAP): SNAP is the 
cornerstone of the nutrition safety net, providing more than 46 million 
low-income participants with monthly benefits via a grocery debit card. 
Eligibility is based on household income and assets and is subject to 
work and citizenship requirements. SNAP is one of the most responsive 
safety net programs, expanding quickly to meet the rising need during 
the recession. The program is targeted at our most vulnerable; 76% of 
SNAP households contain a child, senior, or disabled member, and 84% of 
all benefits go to these households.

  <bullet> As the number of people unemployed grew 94% from 2007 to 
        2010, SNAP responded with a 70% increase in participation over 
        the same period. As the economy slowly recovers and 
        unemployment begins to fall, SNAP participation and costs, too, 
        can be expected to decline.

  <bullet> The SNAP accuracy rate of 96.19% (FY10) is at an all-time 
        program high. SNAP error rates declined by 61% from FY 1999 to 
        FY 2010, from 9.86% to a record low of 3.81%.

  <bullet> SNAP benefits supplement a household's food budget but are 
        insufficient to last most participants through the month, 
        causing many participants to rely regularly on food banks. 
        Among Feeding America food pantry clients receiving SNAP 
        benefits, over \1/2\ (58%) reported having visited a food 
        pantry at least 6 months or more during the prior year.

  <bullet> The average SNAP household has a gross monthly income of 
        $731 and countable resources of $333, consists of 2.2 persons, 
        and participates in the program for 9 months. The average 
        household receives a monthly benefit of $287, or about $1.49 
        per person per meal.

    Farm Bill Priorities for SNAP:

  <bullet> Protect SNAP by opposing proposals to cap or reduce funding, 
        restrict eligibility, reduce benefits, or otherwise impede 
        access or benefit adequacy. Recent proposals to block grant the 
        program would prevent it from responding effectively to 
        fluctuations in need, and efforts to limit broad-based 
        categorical eligibility would increase administrative costs and 
        access barriers.

  <bullet> Restore the cut to the SNAP ARRA benefit boost used to pay 
        for the 2010 child nutrition bill and phase out the boost in a 
        way that protects families from a cliff in benefit levels.

  <bullet> Encourage better nutrition by maintaining nutrition 
        education, incentivizing the purchase of healthy foods, and 
        ensuring that retailer standards balance adequate access to 
        stores with access to a range of healthy foods and moderate 
        prices.

  <bullet> Build on SNAP's strong record of integrity and payment 
        accuracy by issuing guidance to states on the eligibility of 
        lottery winners and college students and upgrading resources 
        and technology for trafficking prevention.

    Commodity Supplemental Food Program (CSFP): CSFP leverages 
government buying power to provide nutritious food packages to 
approximately 599,000 low-income people each month. Nearly 97% of 
program participants are seniors with incomes of less than 130% of the 
poverty line (approximately $14,000 for a senior living alone). 
Currently, 39 states and the District of Columbia participate in CSFP. 
Another six states (CT, HI, ID, MD, MA, & RI) have USDA-approved plans, 
but have not yet received appropriations to begin service.

  <bullet> CSFP is an efficient and effective program. While the cost 
        to the USDA to purchase commodities for this package of food is 
        about $20 per month, the average retail value of the foods in 
        the package is $50.

  <bullet> CSFP helps to combat the poor health conditions often found 
        in seniors who are experiencing food insecurity and are at risk 
        of hunger. CSFP food packages, specifically designed to 
        supplement nutrients typically lacking in participants' diets 
        like protein, iron, and zinc, can play an important role in 
        addressing the nutrition needs of low-income seniors.

  <bullet> Many seniors participating in CSFP are able to have their 
        food boxes delivered directly to their homes or to senior 
        centers nearby, an important benefit for those who are 
        homebound, have limited mobility or do not have convenient 
        access to a grocery store.

    Farm Bill Priorities for CSFP:

  <bullet> Transition CSFP to a seniors-only program while 
        grandfathering in current participants to promote greater 
        efficiencies and recognize CSFP's evolution to serving a 
        primarily senior population.

    For a growing numbers of Americans, food banks are the only 
resource standing between them being able to put food on the family 
dinner table or going to bed with an empty stomach. However, the 
charitable food assistance network alone cannot meet the needs of these 
families. It is only through our public-private partnership with the 
Federal Government through programs like TEFAP and CSFP and sustained 
support for SNAP and other programs in the nutrition safety net that we 
can make real strides in the fight against hunger.
    As Congress drafts the next farm bill, we ask you to remember the 
families in Kansas who are facing hunger and the important role that 
nutrition programs play in their health and well-being, especially for 
vulnerable children and seniors. We are continuing to explore 
opportunities to enhance support for Federal nutrition programs through 
programmatic or policy innovations, and look forward to working with 
you as you review the title IV nutrition programs and begin the work of 
crafting the next farm bill. Congress must keep the nutritional safety 
net strong--the health of our communities depends on it.
            Respectfully Submitted,

Brian Walker,
President & CEO,
Kansas Food Bank;

Karen Haren,
President & CEO,
Harvesters--The Community Food Network;

David Davenport,
Executive Director,
Second Harvest Community Food Bank.
                                 ______
                                 
                        Comment of Mark Atherlay
    Date Submitted: Friday, May 18, 2012, 1:44 p.m.
    City, State: Los Angeles, CA
    Occupation: Voiceover Actor
    Comment: PLEASE allow farmers the dignity of doing what they do 
best, Farming! (Without Agri-Business interfering and squeezing them 
out of business.) We the People demand it!
                                 ______
                                 
                        Comment of Mary Atkinson
    Date Submitted: Friday, May 18, 2012, 10:16 a.m.
    City, State: Richmond, VA
    Occupation: Working Artist--Painter
    Comment: Enough of Big Ag . . . our food becomes more and more 
frightening, toxic and lacking in cleanliness. Please support small 
farms and organic farms,

Mary Atkinson.
                                 ______
                                 
                        Comment of Gurunam Atwal
    Date Submitted: Friday, May 18, 2012, 2:52 p.m.
    City, State: Eugene, OR
    Occupation: Student
    Comment: We all deserve to eat healthy, wholesome, organic food 
that nourishes our bodies. Would you feed your children this food? It 
is important to maintain a food system that listens to the natural 
ecosystem that has been functioning on its own for centuries before we 
came along. We must work hard to maintain a food system that grows food 
as close to the natural ecosystems as possible.
                                 ______
                                 
                       Comment of Frances Aubrey
    Date Submitted: Friday, May 04, 2012, 9:58 p.m.
    City, State: Kensington, CA
    Occupation: Artist and Writer
    Comment: I eat only local, organic meat and produce. In order to 
reduce our country's dependence on oil, we must support small farmers, 
especially organic farmers. We should not subsidize huge agribusinesses 
which ruin the soil with chemicals. We must move toward food 
independence on a local level, and not rely on produce and meat flown 
in from other countries.
                                 ______
                                 
                      Comment of Marisha Auerbach
    Date Submitted: Tuesday, May 15, 2012, 11:04 a.m.
    City, State: Portland, OR
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Diverse farms based on the principles of nature support 
healthy community ecosystems. Please encourage closed system design 
where the soil is built onsite using natural processes like composting 
and strategies for attracting diverse pollinators into the field. The 
strength and resilience of our national food system comes from tending 
to our soils for long term stability.
                                 ______
                                 
                        Comment of Darcy Augello
    Date Submitted: Friday, May 18, 2012, 12:11 p.m.
    City, State: Doylestown, PA
    Occupation: Bookkeeper
    Comment: I have been a grower of Organic Vegetables for over 15 
years and Organic Free Range Egg. Given the extensive amount of 
information that is now readily available to the Average American it is 
imperative that a farm bill is created with conservation and support 
for organic and sustainable agriculture as it's number one priority. 
The American People will stand for nothing less.
                                 ______
                                 
                      Comment of Richard Aulicino
    Date Submitted: Friday, May 18, 2012, 2:36 p.m.
    City, State: Lake George, NY
    Occupation: Holistic Dentist
    Comment: Farm policy must favor small farms, organic farms = health 
of the population. GMO and Monsanto like progress is at the expense of 
human life which is subservient to profit. The more I find out about 
health and food the more greed seems to come up versus respect for 
nature and each other and the animals. We are part of this Earth and it 
will take care of us as we care for it. Small farms and organic farms 
are key.
                                 ______
                                 
                         Comment of Rick Auman
    Date Submitted: Thursday, May 17, 2012, 4:37 p.m.
    City, State: Las Vegas, NV
    Occupation: Web Developer
    Comment: Small farms help America in so many ways: most use 
sustainable practices, keeping the soil from being devastated from 
nutrients and holding pollutants/toxins down.
                                 ______
                                 
                        Comment of Carol Austin
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Bellingham, WA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: Do you think you can hold off on helping giant 
corporations make us sick and kill us with their bad practices, and 
actually work for the people who elected you? Oh wait, I forget that 
getting rich helping giant corporations is what most politicians do. 
Then after you let them make us sick, you can hand us over to the 
health care and insurance corporations so they can finish milking all 
our money out of us before we die. Thus insuring that there is nothing 
left to pass to our children. That's the American way all right--the 
politicians and corporations get it all while the 99% end up with 
nothing.
                                 ______
                                 
                        Comment of Lesley Austin
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Burlington, VA
    Occupation: Homemaker, Entrepreneur
    Comment: It is very simple, please start to care more about the 
Earth and the farmers and the animals than corporate greed and power. 
Please acknowledge the connections between the way the Earth is tended 
and the health of our food, our people, our land. It is so clear to see 
that far too many decisions in farm policy are made to placate the huge 
companies and their desire to hold on to and grow their profits rather 
than protect and support small farmers, who ought to be the at the 
heart of our farm policy.
    How I wish Thomas Jefferson was here to eloquently remind you of 
the importance of holding our country's agricultural health higher than 
the seeking of more monetary wealth for the pockets of a comparative 
few.
    Please do the right thing!
                                 ______
                                 
                       Comment of Richard Austin
    Date Submitted: Friday, May 18, 2012, 7:13 p.m.
    City, State: Rio Frio, TX
    Occupation: Teacher
    Comment: I am in support of an Organic Farm Bill that protects and 
subsidizes small, organic family farms and removes support from large 
agribusinesses. This change is vital for the health of all Americans.
                                 ______
                                 
                        Comment of Shelly Austin
    Date Submitted: Friday, May 18, 2012, 2:08 p.m.
    City, State: Newbury Park, CA
    Occupation: Planner
    Comment: Please help protect organic farms and the health of the 
American. We need small, sustainable farms to be given government 
assistance--not big agricultural companies who are taking the nutrition 
out of our food and making us fat!
                                 ______
                                 
                      Comment of Annemarie Avanti
    Date Submitted: Wednesday, May 09, 2012, 6:01 p.m.
    City, State: Phoenix, AZ
    Occupation: Retired Director of Social Services
    Comment: As a former director of programs for Seniors, I've 
witnessed firsthand retired elders choosing between paying for their 
medicine, housing and food. I've witnessed some who've chosen to eat 
canned pet food so they could afford to pay all their bills. At one 
point in my career, I oversaw a daily evening meals program for the 
hungry. A majority of those eating dinner, were elderly citizens whose 
retirement income did not support regular healthy nutrition.
    These situations are a travesty in our country. Poor nutrition for 
seniors only increases our country's Medicare bills. Cutting the (SNAP) 
food stamp program, (TEFAP)emergency food assistance program, and 
(CSFP) food boxes for seniors, will leave millions of seniors hungry.
    Please protect these programs and fund them to their fullest 
capacity.
    Thank you.
                                 ______
                                 
                       Comment of Roberta Avidor
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Minneapolis, MN
    Occupation: Illustrator
    Comment: We must support family farms that use environmentally 
benign methods of cultivation. The health of our soils is of utmost 
importance not only for the environment, but for human health as well. 
Big Ag depends far too much on harmful pesticides, herbicides and huge 
amounts of petroleum for arguably dubious products.
                                 ______
                                 
                         Comment of Frank Ayers
    Date Submitted: Friday, May 11, 2012, 9:41 p.m.
    City, State: Hollidaysburg, PA
    Occupation: Automotive
    Comment: I would like to see the shift toward organic farming as 
much as possible. This is a much safer method of farming in regards to 
the farmers and farm workers. It also produces a safer product for the 
end consumer (the public), especially with regards to children.
    I believe the Federal government should take an active role in 
persuading pesticide manufacturers to make the gradual transition to 
producing primarily organic pesticides. The manufacturers would still 
maintain their sales and profits, and meanwhile it would make the 
environment safer as well as creating safer, land sustainable farming. 
Thanks.

Frank Ayers.
                                 ______
                                 
                        Comment of Harold Ayers
    Date Submitted: Thursday, May 03, 2012, 1:37 p.m.
    City, State: Gainesville, TX
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: With a all-time low approval rating, you sink to an all 
new low. Shame on you. This is without a doubt, the most ridiculous 
bill that I know of to even be up for debate. Why is this even tabled 
still? This should be a no-brainer. No!
                                 ______
                                 
                         Comment of Carol Ayoob
    Date Submitted: Saturday, May 19, 2012, 9:05 a.m.
    City, State: Presque Isle, ME
    Occupation: Community Organizer, Artist, Musician
    Comment: Please Do The Right Thing for our health, our children, 
and the future of this planet! Support local organic farms--by funding 
best practices--and not funding BiG interests! I am appalled to find 
such lack of respect for the integrity of farmers who practice Real 
farming! Index prices not to one standard, but relative to food! This 
is all too complicated to write here and I resent your lack of long-
term planning for a sustainable future.
                                 ______
                                 
                    Comment of Benoit Azagoh-Kouadio
    Date Submitted: Saturday, May 19, 2012, 11:20 a.m.
    City, State: South Dartmouth, MA
    Producer/Non-producer: Producer
    Type: Fruits, Livestock, Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: Dear House Committee on Agriculture,

    It has reached my attention the presently the farm bill is being 
redrafted. As a recent member of a small scale agricultural production 
team, I would like to express some of the reservations that I have 
about the nature the upcoming bill and what I understand to be a 
continuation of the entrenched sheltering of industrial agriculture 
through large scale subsidies and insurance waivers. I believe that 
there is enough evidence to show that the proliferation of the 
industrial agriculture model has gone a long way toward negatively 
impacting farmers and the wealth of actual local farm based economies. 
Furthermore by flooding the grocery market with a base of cheaply 
available highly processed monocultural ingredients (soy, corn, beef, 
etc.) this model of business is contributing to the increasing public 
health and chronic disease epidemic in this country. As a legislative 
body is your job to be open to understanding the cause and effect 
relationship of policymaking and to steer the direction and energy of 
regulation towards the health of this people. We can no longer ignore 
the ramifications of continuing this industrial cycle and need to find 
a way to realize a shift significantly towards productions models that 
encourage contribution to localized economy and direct support to 
farmers using permacultural and organic methods. I strongly urge you to 
do so by fully endorsing such provision as he Local Foods, Farms and 
Jobs Act, the Conservation Stewardship Program, the Beginning Farmer 
and Rancher Opportunity Act, and the EQIP Organic Initiative.

    Thank you.
                                 ______
                                 
                         Comment of Tatiana B.
    Date Submitted: Saturday, May 19, 2012, 11:50 a.m.
    City, State: Los Angeles, CA
    Occupation: Physical Therapist
    Comment: I believe our strength, independence and health as a 
nation greatly relies on how we manage our food supply and the quality 
of food we produce. Please consider supporting small family-run and 
organic farms instead of subsidizing large industry farms.
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                         Comment of Yvonne Babb
    Date Submitted: Friday, May 18, 2012, 2:07 p.m.
    City, State: Bend, OR
    Occupation: Teacher, Science, Agriculture, Naturalist
    Comment: Dear Representative Walden;

    Please do your best to balance the long term needs of sustainable 
agriculture when voting on the attached bills.
    Tell Congress that you support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    We must keep the research on organic farming and ranching 
practices, which are essential to solving the problems which are caused 
by large scale practices which do not mimic nature. The problems with 
bees, pesticides and antibiotics in meat are not remedied by old 
thinking. We need the environmentalists and farmers/ranchers to work 
together to solve problems with the best interest of the human in mind.
    Thank you,

Yvonne Babb.
                                 ______
                                 
                       Comment of Michelle Babin
    Date Submitted: Sunday, March 25, 2012, 7:06 p.m.
    City, State: Sutton, MA
    Occupation: Dietetic Intern/Student
    Comment: March 25, 2012

    To whom it may concern,

    As a concerned citizen who takes pride in our country's land, 
commodities and overall health of our nation, I would like to voice my 
gratitude and encouragement for the 2012 Farm Bill. As a future 
registered dietitian, I have had the rewarding opportunity to witness 
first-hand how the farm bill has truly made a difference in people's 
lives as well as my own personal life. I was fortunate enough to work 
at a local WIC office in rural North Carolina for a few weeks. To be 
honest, I was never a strong proponent of food stamps and many other 
government-funded programs, but my opinion has definitely been altered. 
I was not very familiar with WIC and what the program actually 
entailed. As I learned the ins and outs, I realized that this program 
was properly developed to truly meet the needs of lower income families 
who honestly need the help. The fact that this program requires 
quarterly health checks for not only the infants and children but also 
the mothers, gives this program a lot of credibility. Not everyone is 
able to qualify for this program. It is a give and take process, in 
which the client needs to put in some effort and if they follow 
through, they will be rewarded.
    I met a few families who outwardly seemed to be making ends meet, 
but in reality were facing some very difficult times. Some families who 
had it all only a few months ago, were now scrounging for a way to 
provide for their children. Many of these people were hard working, 
honest people who were hit hard by the depressed economy. Seeing their 
faces light up when we explained that they were qualified and what that 
truly meant was gratifying. This program does not have the funding to 
provide a lot for these families, thusly why it is called a 
supplemental program. Its purpose is to help lighten the burden 
significantly, provide the necessities. After this experience, I am a 
true proponent for this nutrition program and pray that it may continue 
into the future.
    On a lighter note, growing up I was fortunate enough to live in a 
small New England town. I cannot see into my neighbor's house or can a 
throw a baseball and hit it. We have land; beautiful lush land. My 
father has kept a large garden in our backyard since I was a child, 
something I have truly missed now that I am on my own. I have been very 
blessed to grow up in an amazing part of the country. Much of the 
industry in our town is agriculture based; therefore, I know just how 
important it is for our farmers to have proper representation within 
our government.
    One of the major local agricultural spots is a dairy farm. I 
personal know the family and have witnessed firsthand what a depressed 
economy can do to their business. Not only is their family affected, 
but also the whole community hurts with them. It is so crucial that our 
farmers and agricultural workers have proper support so that even in 
hard times, they will have someone to lean on if need be. These are 
some of the hardest working people you will ever meet. You know they 
will do anything they possibly can first before having to ask the 
government for aid. These are the honest, true Americans who have 
sustained this nation for hundreds of years; therefore, there should be 
no hesitation when it comes to providing a strong backbone for them if 
they ever need to rely on it.
    It is evident that this farm bill lies true and dear to my heart 
and always will. My future career relies heavily on this bill and 
without this funding; I can honestly say that it will be a devastating 
lost to millions of people. This is not just some small bill looking 
for some fame in Washington; this bill has the potential to change 
millions of peoples' lives. We all need and rely on food; therefore, 
everyone in this country will be affected if this bill does not receive 
adequate funding. I will continue to advocate in honor of this bill and 
know I have hundreds of friends, family and co-workers who will do the 
same. Thank you for this opportunity, stay strong and together we can 
make this happen.
            Thank you,

Michelle Babin,
Dietetic Intern.
                                 ______
                                 
                         Comment of Lia Babitch
    Date Submitted: Friday, May 18, 2012, 4:22 p.m.
    City, State: Copake, NY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: 301-500 acres
    Comment: It's time for real reform that does not favor huge farms 
that have damaging environmental and social practices, but makes the 
marketplace fair and reasonable for all farmers, and doesn't favor 
size. Small farms, like other small businesses, where the jobs are, if 
small farmers aren't discriminated against, and struggling to survive. 
It's also time to stop subsidizing unhealthy foods, while people 
growing the things we should be eating can hardly make ends meet, and 
the cheapest food is the worst for us all, and making us fat and sick, 
and costing us lots of money in healthcare.
                                 ______
                                 
                    Comment of Bonnie Bach-Mitchell
    Date Submitted: Saturday, April 28, 2012, 8:17 a.m.
    City, State: Cincinnati, OH
    Occupation: Artist/Writer & Activist
    Comment: Farming is a hard profession. They need all the help and 
assistance they can get--stop messing around w/ the farming people--
they need your help--and after all--they vote too! Please don't mess 
them up--protect `farming' what do we have left? They are the people of 
the Earth! They feed the rest of us too!

Bonnie Bach-Mitchell.
                                 ______
                                 
                        Comment of Peggy Backup
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Redwood Valley, CA
    Occupation: Plant Pathologist
    Comment: I am a former farmer and current backyard and community 
gardener. We no longer need commodity crops to be subsidized, and we 
can't afford them. We need to grow more fruit, vegetables, nuts, and we 
need to do it locally and sustainably. Put the farm bill money into 
helping local communities regain their food security, helping farmers 
take care of the environment, and creating a more healthy diet for all 
of us.
                                 ______
                                 
                        Comment of Crystal Bacon
    Date Submitted: Friday, May 18, 2012, 3:58 p.m.
    City, State: Bryn Mawr, PA
    Occupation: Teacher
    Comment: Please do what's right to protect our land, air and water 
by putting money into small, ecologically viable and responsible farms 
producing organic, local food. We have the capacity to feed all of our 
people and protect our land. No more agribusiness and factory farms!
                                 ______
                                 
                         Comment of David Bacon
    Date Submitted: Sunday, May 20, 2012, 2:11 p.m.
    City, State: Santa Fe, NM
    Occupation: Energy Consultant
    Comment: Healthy, thriving family farms and ranches is not a left/
right issue, it is a human survival issue. Here's hoping our corporate 
congress critters can pull out of the mega ag gravity field to do the 
right thing for every single American, plus our precious soil and 
water.
                                 ______
                                 
                          Comment of Pat Bacon
    Date Submitted: Saturday, May 19, 2012, 10:26 a.m.
    City, State: Milan, NH
    Occupation: Registered Nurse
    Comment: It is a travesty that in America our farmed food sources 
are horror's. The treatment of the farm animals is absolutely beyond 
belief. How can these people do the things they do? Please make big 
changes and make America a country to be proud of in it's treatment of 
all animals and livestock.
                                 ______
                                 
                        Comment of Taylor Bacon
    Date Submitted: Friday, May 18, 2012, 1:13 p.m.
    City, State: Tempe, AZ
    Occupation: Student in School of Design
    Comment: It is required that the ingredients be labeled on prepared 
foods. Truth is, those ingredients listed are worthless without knowing 
the ingredients or the makeup of those ingredients. I have dealt with 
many illnesses because of a lack of integrity in foods. I am not even 
referring to fast food, prepared or packaged food. I am referring to 
``whole food'' supposedly ``unadulterated'' foods in the produce 
department. Not to say that all of my health issues are strictly a 
result of modified products, however, it certainly initiated and 
prolonged my extensive digestive and hormone issues. Please, help put 
the fear I have for my children, family, and future generations at ease 
by at least labeling the source and treatment methods of the foods 
currently on the shelves. It is common knowledge we as consumers 
deserve to know. If there is a concern that people will not but the 
products if they are labeled with such information, then the argument 
would be that they should not be sold for human consumption and 
nourishment to begin with. Thank you! I do hope that you hear me, at 
just 21 years of age, and my plea to simply be informed not only for my 
own sake, but to save future generations and teach health and food's 
purpose nourish.
                                 ______
                                 
                        Comment of Willard Bacon
    Date Submitted: Friday, May 18, 2012, 1:31 p.m.
    City, State: Newport News, VA
    Occupation: Retired Federal Civil Service Employee
    Comment: You people are suppose to be looking out for the health 
and safety of the foods we Americans consume. You are negligent and 
remiss in fulfilling your responsibilities. Big Money has bought and 
paid for you and your decisions. It's high time all of you were fired. 
Trained monkeys could do a better job.
    As Americans paying your salaries, we have the right to know what 
we are eating and whether or not it has been genetically modified or 
genetically manipulated. It should be up to us whether or not we want 
to buy and consume products so created.
                                 ______
                                 
                         Comment of Birke Baehr
    Date Submitted: Friday, May 18, 2012, 2:21 p.m.
    City, State: Knoxville, TN
    Occupation: Student, Youth Advocate, Future Organic Farmer
    Comment: I am writing to ask that more funding is given to small 
farmers who are organic or in transition to organic. The future of 
agriculture needs to go back to taking care of the soil and growing 
organic nutrient dense food without genetically modified organisms 
(seeds, etc.) Funding should go to help farmers with pasture based 
livestock and even growing non-GMO and organic supplemental feed for 
poultry and pork. I speak to groups all the time who tell me that this 
is what they want from American agriculture. We need more small local 
Biodiverse farms and less monocultures.
                                 ______
                                 
                       Comment of Patricia Baehr
    Date Submitted: Friday, May 18, 2012, 2:26 p.m.
    City, State: Knoxville, TN
    Occupation: Stay-at-Home Mother
    Comment: I urge the support of organic farming research to continue 
and grow in addition to assist beginning farmers to get started to 
continue to grow local food systems. We need more biodiverse farms 
growing chemical free food locally for the future of this country and 
the health of our children. I support less funding for chemical 
agriculture including genetically modified and genetically engineered 
livestock and seeds and more for organics.
                                 ______
                                 
                         Comment of Nancy Baer
    Date Submitted: Friday, May 18, 2012, 11:47 a.m.
    City, State: Pickens, SC
    Occupation: Health Care Administrator
    Comment: I know my tea party congressman Jeff Duncan will be all 
about cutting spending in the wrong places. Stop subsidies to 
agribusiness conglomerates and CAFOs and take steps to support small 
farmers and local production by fully funding programs that support 
beginning and socially disadvantaged farmers and ranchers, organic 
farming, regional farm and food economies, and rural development. We 
need more farmers and ranchers, more sustainable food production, and 
more economic opportunity in our food system.
                                 ______
                                 
                        Comment of Ron Baginski
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Cleveland, OH
    Occupation: Marketing
    Comment: Stop all crop subsidies and let the market decide what is 
best. All GMO crops and foods must be labeled clearly on all products 
so consumers make the choice.
                                 ______
                                 
                       Comment of Hayley Bagwell
    Date Submitted: Saturday, May 19, 2012, 4:33 p.m.
    City, State: Longmont, CO
    Occupation: Health Care Industry
    Comment: We deserve to have the information we need to make 
educated decisions about our food! We also deserve to be able to 
support farmers and agriculture that is honest, healthy and safe; not 
corrupt and bullied. Label it and let us decide!
                                 ______
                                 
                        Comment of Freddah Bahl
    Date Submitted: Friday, May 18, 2012, 12:11 p.m.
    City, State: Marietta, GA
    Occupation: Retail (Grocery Store)
    Comment: I've been a ``health nut'' for many years. It's disgusting 
to see all the CRAP that is allowed to go into our food. We've been 
lied to about many, many things.
    Stop the lies! Stop big farms from bullying and putting out of 
business smaller organic and family run farms. Stop Monsanto! Stop 
genetically modified food! (Why has Monsanto been banned in 38 
countries, one of which is Not the United States? Oh yes, Money!)
    Support Organic Farming and healthy food!
                                 ______
                                 
                          Comment of B. Bailey
    Date Submitted: Saturday, May 19, 2012, 11:49 a.m.
    City, State: Cincinnati, OH
    Occupation: Homemaker
    Comment: I find it very disturbing that as a consumer I am being 
denied the right to know how my food is being produced and what is 
being fed to the animals to produce it. It should be everyone's right 
to know what they are eating or what they are feeding their families. 
Large agribusiness answers to no one, lobbyists are killing family 
farms and small businesses across our nation because they can. You, our 
representatives can change that. We ask you to support change for our 
local farmers, especially those who choose to use organic methods of 
farming. If we don't take control of our food supplies now and care for 
our environment in a responsible way what are we telling future 
generations? How are we going to live long enough to right this wrong?
                                 ______
                                 
                       Comment of Larissa Bailey
    Date Submitted: Saturday, May 19, 2012, 8:42 a.m.
    City, State: Novelty, OH
    Occupation: Homemaker
    Comment: Please don't allow companies like Monsanto to control our 
food supply. Make it illegal to use genetically modified seed to grow 
the food we eat.
                                 ______
                                 
                        Comment of Marcia Bailey
    Date Submitted: Saturday, May 19, 2012, 2:24 p.m.
    City, State: Dunedin, FL
    Occupation: Retired Social Worker
    Comment: I would like the farm bill to support the growing of 
fruits and vegetables. We really need to change the way our population 
is eating because of the high incidences of diabetes and obesity. These 
diseases cost us millions in health care, and they are fueled by the 
fact that the government subsidizes corn for cheap corn syrup, wheat 
for cheap baked goods, soybeans for cheap oil for frying, etc. Let's 
support the foods that will make our citizens healthier instead of 
those which make us sicker.
                                 ______
                                 
                       Comment of Melissa Bailey
    Date Submitted: Friday, May 18, 2012, 10:19 a.m.
    City, State: Kinston, NC
    Occupation: Migrant Education Program Recruiter
    Comment: You should know that the level of oppression among 
farmworkers is becoming unsustainable. Those of us who have spent years 
on this side of agriculture have never seen them so oppressed and 
agitated. Consider that when crafting your legislation. You are quickly 
reaching the tipping point in North Carolina.
                                 ______
                                 
                         Comment of Tina Bailey
    Date Submitted: Friday, March 16, 2012, 9:26 a.m.
    City, State: Alva, FL
    Occupation: Homemaker
    Comment: Please don't let big ag take over. I love the KMF 
campaign. I know what goes into the food I eat. I'm taking care of my 
local community. Together we're taking care of and treating our land 
with respect. I don't trust big ag to do the same.
                                 ______
                                 
                        Comments of Vicki Bailey
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: El Dorado, KS
    Occupation: Grandmother
    Comment: Growing children regardless of their economic status HAVE 
to have good food to grow in a healthy way. We ALL pay the price for 
sick kids and families. Is Big Business more important than our 
Children and their families? It would seem so. Food stamps are one 
important way we currently have to provide them with food. What takes 
its place if it is taken away? Will agribusiness step in? Really?
    Date Submitted: Wednesday, May 09, 2012, 3:02 p.m.
    Comment: My 90 year old mother lives in her own home but does not 
drive. Her daughters help her get her food but mom has friends who do 
not have family and have to patch together ways to get the things they 
need. My mother is still in good health because she can access good 
food. Some of her friends have not been nearly so lucky. Please 
consider carefully the food programs like SNAP, TEFAP & CSFP that help 
them stay healthy. This is so much more cost effective than winding up 
in a nursing home needing 24 hr. care!
                                 ______
                                 
                        Comment of Bobbi Bailin
    Date Submitted: Friday, May 18, 2012, 12:09 p.m.
    City, State: West Falmouth, MA
    Occupation: Teacher
    Comment: We need good healthy food for our children and healthy 
soil. Support organic methods that replenish the soil and non-GMO 
products that do not compromise health. Support needs to be given to 
farmers committed to this direction--they are smaller and require more 
hours and help, and this way of providing food and this lifestyle is 
severely threatened by big business.
                                 ______
                                 
                         Comment of Alta Baird
    Date Submitted: Friday, May 18, 2012m 4:10 p.m.
    City, State: Fallon, NV
    Occupation: Retired
    Comment: I am very Concerned about what is happening to our farmers 
as well as what is going on with our produce, I purchased some 
strawberries, I left some of them uneaten on purpose to see what would 
happen, they were left refrigerated for 3 weeks and they never did 
spoil they just withered, now I am old enough to know that is Not 
Normal. What is going on with our farmers and our produce is 
frightening. I Prefer Matural Organic Produce Please. Thank you,

Alta Baird.
                                 ______
                                 
                        Comment of Martha Baird
    Date Submitted: Sunday, May 20, 2012, 1:51 p.m.
    City, State: Dallas, TX
    Occupation: Retired
    Comment: Many years ago I heard the U.S. would soon be out of food. 
It would be hard to realize this by looking at some of the people. The 
illegal's have gained weight after coming here, yet they keep producing 
children . . . at our countries expense; never once considering how the 
farming communities can keep producing food products. The poor farmer 
has had his hands tied by many of the farm bills. Help is needed from 
the Agriculture Committee to start assisting the farmer rather than 
holding him back!
                                 ______
                                 
                        Comment of Michael Baise
    Date Submitted: Monday, March 26, 2012, 2:37 p.m.
    City, State: Bloomington, IN
    Occupation: Agricultural Advocate
    Comment: Agriculture is critical to our national security. The next 
farm bill should include safety net provisions for agricultural 
producers who have numerous risks beyond their control, but in exchange 
for that tax-payer funded protection, farmers should be required to 
abide by conservation compliance for crop and/or revenue insurance.
                                 ______
                                 
                         Comment of Anita Baker
    Date Submitted: Friday, May 18, 2012, 10:29 a.m.
    City, State: Indianapolis, IN
    Occupation: Business Development
    Comment:

  <bullet> Support sustainable farming methods

  <bullet> Ensure good food for children in the schools including 
        retaining breakfasts

  <bullet> Put in policies that support local farmers as well as 
        organic farming

  <bullet> End subsidies for large food corporations like Archer 
        Daniels especially the production of corn

  <bullet> Eliminate cruel animal practices like chickens being forced 
        to overcrowd as well as livestock
                                 ______
                                 
                       Comment of Catherine Baker
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: Lanesboro, MN
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: 151-300 acres
    Comment: We need food access that is locally sustainable. 
Government regulation can and must encourage small producers and 
organic practices that do not answer to mass-production regulations--
but relies for food safety instead on education, local transparency and 
personal responsibility to produce fresher, higher quality, less 
processed foods than are readily available now. Community kitchens that 
are supported by local buy-in and customer loyalty need funding and 
encouragement. A pilot in Lanesboro, MN would be a good starting place, 
as the community cohesiveness, mindset and work ethic are unparalleled.
                                 ______
                                 
                        Comment of Cynthia Baker
    Date Submitted: Tuesday, April 10, 2012, 7:22 p.m.
    City, State: Albuquerque, NM
    Occupation: Nonprofit Supported Living
    Comment: Please remember that due to a rough economy, we have more 
needy, hungry people than ever! Please do not forget them.
                                 ______
                                 
                       Comment of Jennifer Baker
    Date Submitted: Friday, May 18, 2012, 4:32 p.m.
    City, State: Las Vegas, NV
    Occupation: Finance
    Comment: I urge you to consider making `farm to table' options more 
affordable and readily available to our schools and struggling 
families. It is extremely important that our children get the best food 
possible--hunger directly effects scholastic achievement. We live in 
the richest nation in the world and there is no reason our children, or 
any of our citizens, should go hungry!
                                 ______
                                 
                       Comment of Kathleen Baker
    Date Submitted: Saturday, May 19, 2012, 12:08 p.m.
    City, State: Newcastle, OK
    Occupation: Retired
    Comment: I am deeply disturbed at policies being aimed at our 
American family farms. Big Agra has declared war on the family farmer 
and Washington is marching arm in arm with Big Agra to destroy those 
farms through legislation. We've have the best farmers in the world, 
please help them and not harm them. Thank you.
                                 ______
                                 
                         Comment of Keith Baker
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Cincinnati, OH
    Occupation: Carpenter
    Comment: As the population of the U.S.A. becomes more obese and 
less healthy, it is obvious that the other industrialized countries are 
doing something right. We should learn from them and let the health of 
the nation dictate the policies of the pending farm bill, not the 
profits of agribusiness.
                                 ______
                                 
                        Comment of Melanie Baker
    Date Submitted: Friday, May 18, 2012, 2:08 p.m.
    City, State: New York, NY
    Occupation: Musician
    Comment: Please write a bill that sustains the small farms, helps 
people get access to food who need it, keeps pesticides out of the 
food, and puts in place monitors on the big agribusiness farms, since 
that is where it is most needed. Thank you.
                                 ______
                                 
                         Comment of Nancy Baker
    Date Submitted: Friday, May 18, 2012, 5:18 p.m.
    City, State: Kalamazoo, MI
    Occupation: Massage Therapist
    Comment: I support our local farmers who operate in a safe manner. 
Many who are not educated do not have the awareness of what is going in 
their bodies. Everyone deserves to eat food that is not contaminated. 
Food keeps getting larger. Hormone fed. Yuck.
    No wonder we have obesity. We are fed to many hormones and 
chemicals.
                                 ______
                                 
                       Comment of Patricia Baker
    Date Submitted: Wednesday, May 09, 2012, 3:25 p.m.
    City, State: Laguna Hills, CA
    Occupation: Pharmacist
    Comment: I feel that the SNAP program is especially important to 
children and seniors. Both these groups of citizens have large numbers 
who are at risk for hunger. Snap aids the nutrition of children so that 
they are better able to learn, and to aid seniors whose health is made 
better by better nutrition.
                                 ______
                                 
                    Comments of Rosalyn Baker Ingham
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: Grand Rapids, MI
    Occupation: Marriage and Family Therapist
    Comment: There is nothing more important than healthy food. Please 
stop the poisoning of our children so we can decrease Autism--now one 
in 85.
    Date Submitted: Friday, May 18, 2012 1:51 p.m.
    Comment: Evidence is clear that the Autism rate of 1 in 85 has some 
relationship to the toxic food we eat. Please protect us adults but 
more importantly, you have a responsibility to protect our children.
                                 ______
                                 
                   Comment of Jennifer Baker-Trinity
    Date Submitted: Friday, May 18, 2012, 3:06 p.m.
    City, State: Beaver Springs, PA
    Occupation: Writer, Musician, Stay-At-Home Parent
    Comment: I encourage supporting organic farming and smaller, 
regional farms. I buy from local farms when possible and want to see 
these farms thrive so that our carbon-footprint is reduced. I support 
legislation that supports rural development and encourages more 
independent farms.
                                 ______
                                 
                         Comment of Jeri Bakhsh
    Date Submitted: Sunday, May 20, 2012, 3:54 p.m.
    City, State: San Diego, CA
    Occupation: Sales
    Comment: Over the decades I've watched how corporate agribusiness 
has done great damage to small farmers and ranchers. I support the 
organic and local foods movements. You guys just can't keep up the 
corporate welfare. You really are destroying our great country.
                                 ______
                                 
                         Comment of Susan Bakke
    Date Submitted: Friday, May 18, 2012, 7:47 p.m.
    City, State: Lacey, WA
    Occupation: Educator
    Comment: I want all my food to be organic, non GMO, grown as 
locally as possible. This is what should be fostered in communities 
across the country. We save money, resources, decrease pollution by 
decreasing transportation, and our health is improved from fewer 
chemicals.
                                 ______
                                 
  Comment of Nora Balduff; On Behalf of Lisa Hamler-Fugitt, Executive 
         Director, Ohio Association of Second Harvest Foodbanks
    Date Submitted: Sunday, May 20, 2012, 2:37 p.m.
    Comment: May 20, 2012

House Committee on Agriculture
Washington, DC 20515

    Dear Chairman Lucas, Ranking Member Peterson, and members of the 
Committee:

    Thank you for the opportunity to provide input on the upcoming farm 
bill reauthorization. Given the ever increasing need for food 
assistance in our state and the declining supply of Federal commodity 
support, I strongly urge you protect and strengthen nutrition programs 
in the 2012 Farm Bill.
    The Ohio Association of Second Harvest Foodbanks is Ohio's largest 
charitable response to hunger. Our network represents 12 foodbanks, 
providing food, funding, training, and technical assistance to more 
than 3,300 food pantries, soup kitchens, homeless shelters, and 
supplemental food providers.
    We see every day how important Federal nutrition programs are in 
our community and how effectively they are working to ensure that 
Ohioans can provide enough food for their families. ``In the last 
quarter of 2011, hungry Ohioans made 2,305,463 visits to our member 
food pantries, soup kitchens, and shelters alone.''
    Nationally, the Feeding America network of more than 200 foodbanks 
has seen a 46 percent increase in foodbank clients from 2006 to 2010. 
In Ohio, our member foodbanks and member agencies have experienced a 
23.6 percent increase in demand since 2009, with a 35.6 percent 
increase in demand from adults over the age of 60. Without strong farm 
bill nutrition programs like The Emergency Food Assistance Program 
(TEFAP), the Supplemental Nutrition Assistance Program (SNAP), and the 
Commodity Supplemental Food Program (CFSP), foodbanks across the 
country would be struggling even more to meet the increased need.
    We recognize the challenge you face drafting a farm bill in a time 
of deficit reduction, but we are also sensitive to the tremendous, 
ongoing need in our state. As such, we have two key priorities for the 
farm bill.
    First, we urge you to strengthen TEFAP to help us keep up with 
increased demand. TEFAP supplies about 25 percent of the food moving 
through Feeding America's national network of foodbanks, and 27 percent 
of food distributed throughout Ohio. But because of high commodity 
prices, TEFAP food declined 30 percent last year, and our member 
foodbanks are struggling to make up the difference. We urge you to make 
TEFAP more responsive during times of high need by tying increases in 
mandatory funding to a trigger based on unemployment levels. We also 
propose to enhance the Secretary of Agriculture's authority to make 
TEFAP bonus purchases at times when the need for emergency food 
assistance is high--for example, during periods of high unemployment--
in addition to times of weak agriculture markets so that the program 
can respond to both excess supply and excess demand.
    Second, we also strongly urge you to protect SNAP from harmful 
funding cuts or policy proposals that would restrict eligibility or 
reduce benefits. SNAP has responded effectively to growing need during 
the recession with benefits that are timely, targeted, and temporary. 
The average SNAP household has an income of only 57 percent of the 
Federal poverty level, and 84 percent of benefits go to households with 
a child, senior, or disabled person. The program is working to support 
vulnerable Ohio families, and our foodbanks and local agency partners 
would not be able to meet the increased need for food assistance if 
SNAP were cut.
    These programs have a real impact on your constituents, many of 
whom must rely on the foodbank and Federal nutrition programs to meet 
their basic food needs. I would encourage you to visit the foodbanks 
serving your district before the committee marks up a farm bill so you 
can meet the constituents standing in our food lines and see firsthand 
how Federal nutrition programs are working to protect vulnerable 
Americans from hunger.
    The Ohio Association of Second Harvest Foodbanks believes that 
feeding our neighbors is a shared responsibility, and foodbanks like 
ours rely on a variety of food streams to support our communities, 
including generous support from partners in retail, manufacturing, and 
agriculture. However, the Federal government is an equally critical 
partner through programs like TEFAP, SNAP, and CSFP, and with 
tremendous, ongoing need in our state, Federal support is more 
important than ever.
    As the House Agriculture Committee moves forward with farm bill 
reauthorization, the Ohio Association of Second Harvest Foodbanks urges 
you to protect the nutrition safety net and offers the specific 
recommendations below.
            Sincerely,

Lisa Hamler-Fugitt,
Executive Director,
Ohio Association of Second Harvest Foodbanks.
Feeding America Farm Bill Priorities
    The Emergency Food Assistance Program (TEFAP): TEFAP is a means-
tested Federal program that provides food commodities at no cost to 
Americans in need of short-term hunger relief through organizations 
like foodbanks, pantries, soup kitchens, and emergency shelters. 
Nutritious food commodities provided through TEFAP are an essential 
resource for Feeding America foodbanks. As the demand for food remains 
high at foodbanks across the country, a continuous stream of TEFAP is 
necessary for the provision of a steady emergency food supply.

  <bullet> TEFAP commodities account for approximately 25 percent of 
        the food moving through Feeding America foodbanks. Foodbanks 
        combine TEFAP with private donations to maximize TEFAP benefits 
        far beyond the budgeted amount for the program. In this way, 
        foodbanks exemplify an optimum model of public-private 
        partnership.

  <bullet> TEFAP has a strong impact on the farm economy. According to 
        USDA's Economic Research Service, producers of commodities 
        provided as bonus TEFAP (those purchased by USDA to intervene 
        in weak agricultural markets) receive an estimated 85 cents per 
        dollar of Federal expenditure. Producers of other commodities 
        provided through TEFAP receive about 27 cents per dollar. By 
        contrast, only about 16 cents of every retail food dollar goes 
        back to the farmer.

  <bullet> Declines in Section 32 funding and strong agriculture 
        markets resulted in a 30 percent decline in TEFAP purchases 
        during FY2011. This decline is expected to continue in FY2012 
        as foodbanks continue struggling to meet increased need. The 
        shortfall between supply and demand will only worsen when the 
        SNAP ARRA benefit boost expires, as many participants turn to 
        foodbanks to make up for the reduction in benefit levels.

    Farm Bill Priorities for TEFAP:

  <bullet> Make mandatory funding for TEFAP food more responsive to 
        changes in need by providing a trigger that ties funding to 
        unemployment levels

  <bullet> Enhance Secretary of Agriculture's authority to purchase 
        bonus commodities in times of high need for emergency food 
        relief in addition to times of low commodity prices so the 
        program is responsive both to excess supply and excess demand

  <bullet> Reauthorize funding for TEFAP Storage and Distribution Funds 
        at $100 million per year

  <bullet> Reauthorize funding for TEFAP Infrastructure Grants at $15 
        million per year

    Supplemental Nutrition Assistance Program (SNAP): SNAP is the 
cornerstone of the nutrition safety net, providing over 46 million low-
income participants nationally and 1.8 million Ohioans in February 
2012. with monthly benefits via a grocery debit card. Eligibility is 
based on household income and is subject to work and citizenship 
requirements. SNAP is one of the most responsive safety net programs, 
expanding quickly to meet rising need during the recession. The program 
is targeted at our most vulnerable: 76 percent of SNAP households 
contain a child, senior, or disabled member, and 84 percent of all 
benefits go to these households.

  <bullet> As the number of people unemployed grew 110 percent from 
        2007 to 2010, SNAP responded with a 53 percent increase in 
        participation over the same period. As the economy slowly 
        recovers and unemployment begins to fall, SNAP participation 
        and costs too can be expected to decline.

  <bullet> The SNAP accuracy rate of 96.19 percent (FY10) is an all-
        time program high. SNAP error rates declined by 61 percent in 
        FY1999 to a record low of 3.81 percent in FY2010.

  <bullet> SNAP benefits supplement a household's food budget but are 
        insufficient to last most participants through the month, 
        causing many participants to rely regularly on foodbanks. Among 
        Feeding America food pantry clients receiving SNAP benefits, 
        over \1/2\ (58 percent) reported having visited a food pantry 
        in at least 6 months or more during the prior year.

  <bullet> The average SNAP household has a gross monthly income of 
        $731 and countable resources of $333, consists of 2.2 persons, 
        and participates in the program for 9 months. The average 
        Ohioan participating receives a monthly benefit of $138.00, or 
        about $1.50 per person per meal.

    Farm Bill Priorities for SNAP:

  <bullet> Protect SNAP by opposing proposals to cap or reduce funding, 
        restrict eligibility, reduce benefits, or otherwise impede 
        access or benefit adequacy. Recent proposals to block grant the 
        program would prevent it from responding effectively to 
        fluctuations in need, and efforts to limit broad based 
        categorical eligibility would increase administrative costs and 
        access barriers.

  <bullet> Restore the cut to the SNAP ARRA benefit boost used to pay 
        for the 2010 child nutrition bill and phase out the boost in a 
        way that protects families from a cliff in benefit levels.

  <bullet> Encourage better nutrition by maintaining nutrition 
        education, incentivizing the purchase of healthy foods, and 
        ensuring that retailer standards balance adequate access to 
        stores with access to a range of healthy foods and moderate 
        prices.

  <bullet> Build on SNAP's strong record of integrity and payment 
        accuracy by issuing guidance to states on the eligibility of 
        lottery winners and college students and upgrading resources 
        and technology for trafficking prevention.

    Commodity Supplemental Food Program (CSFP): CSFP leverages 
government buying power to provide nutritious food packages to 
approximately 599,000 low income people each month, and 20,463 Ohioans. 
Nearly 97 percent of program participants are seniors with incomes of 
less than 130 percent of the poverty line (approximately $14,000 for a 
senior living alone). Currently, 39 states and the District of Columbia 
participate in CSFP. Another six states (CT, HI, ID, MD, MA, & RI) have 
USDA-approved plans, but have not yet received appropriations to begin 
service.

  <bullet> CSFP is an efficient and effective program. While the cost 
        to USDA to purchase commodities for this package of food is 
        about $20 per month, the average retail value of the foods in 
        the package is $50.

  <bullet> CSFP helps to combat the poor health conditions often found 
        in seniors who are experiencing food insecurity and at risk of 
        hunger. CSFP food packages, specifically designed to supplement 
        nutrients typically lacking in participants' diets like 
        protein, iron, and zinc, can play an important role in 
        addressing the nutrition needs of low-income seniors.

  <bullet> Many seniors participating in CSFP are able to have their 
        food boxes delivered directly to their homes or to seniors' 
        centers nearby, an important benefit for those who are 
        homebound, have limited mobility, or do not have convenient 
        access to a grocery store.

    Farm Bill Priorities for CSFP:

  <bullet> Transition CSFP to a seniors-only program by phasing out 
        eligibility of women, infants, and children while 
        grandfathering in current participants.
                                 ______
                                 
                        Comment of Mary Baldwin
    Date Submitted: Saturday, May 19, 2012, 3:29 p.m.
    City, State: Bedford, OH
    Occupation: Direct Marketing
    Comment: I am so concerned about the subsidies paid factory farmers 
to the detriment of our health, environment and economy and that 
business holds sway over the average citizen. Please support 
sustainable agricultural practices, healthy livestock production and 
clean air and water.
                                 ______
                                 
                       Comment of Bessie Ballard
    Date Submitted: Friday, May 18, 2012, 2:45 p.m.
    City, State: Hoodsport, WA
    Occupation: Retired
    Comment: As an consumer who is very unhappy with the terrible 
produce we are getting in our markets . . . we are seniors on a fixed 
income with health issues and cannot afford to keep throwing spoiled 
vegetable away that are rotting and shriveling up within a day of 
purchase due to the horrible cancer and other deadly disease causing 
chemicals sprayed on our produce by Monsanto and Cargill. Please vote 
to give us chemical free food products in our markets. Please Vote 
Against Any Attempt To Continue The Deadly Spraying Of Our Food. Thank 
you very much.
                                 ______
                                 
                     Comment of Eusebius Ballentine
    Date Submitted: Saturday, May 19, 2012, 10:10 a.m.
    City, State: Honesdale, PA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: The government ought to help the process that is already 
happening, they ought to pay attention and see what it is that people 
want and then aid them in attaining that goal. All the polls indicate 
how people want to have safer food and know where it comes from with 
less chemicals and is better for the environment. It's up to the 
government to not be tempted by corruption and money and simply do the 
bidding of the people. It's going to happen either way and we can 
achieve a better food future now or later. If we choose the later we 
also increase our chances of devastating events that could derail 
humanity for a very long time. Do the right thing!
                                 ______
                                 
                       Comment of Anna Bandfield
    Date Submitted: Friday, May 18, 2012, 1:25 p.m.
    City, State: Port Orchard, WA
    Occupation: Customer Service
    Comment: Small farmers and organic farmers are supremely important, 
and they need and deserve appropriate funding. The problem with non-
organic produce is not only the pesticides, it doesn't have any 
nutrition! Americans are overfed but malnourished--and have vitamin 
deficiencies because commercial produce lacks nutrition. Please don't 
cut funding for organics and beginning farmers.
                                 ______
                                 
                        Comment of Betty Banham
    Date Submitted: Saturday, May 19, 2012, 10:21 p.m.
    City, State: Willits, CA
    Occupation: Housewife
    Comment: America could grow enough food to feed all of us and many 
third. world countries as well. Keep our farmers working. Get rid of 
GMO's, we have the knowledge for sustainable agriculture.
                                 ______
                                 
                        Comment of Gene Banister
    Date Submitted: Friday, May 18, 2012, 2:07 p.m.
    City, State: Wenagtchee, WA
    Occupation: Retired Engineer
    Comment: As one who grew up on a farm, I an aware of how food is 
produced. I fully support the desire of people to make their own choice 
of what food to buy. There are risks with buying food directly from the 
farmer but there are also risks with buying food grown following 
government rules. I prefer to be able to buy directly from a person I 
trust. I do Not trust bureaucrats to protect my food. Please allow 
people to take responsibility for their choices.
                                 ______
                                 
                         Comment of Brian Banks
    Date Submitted: Thursday, March 22, 2012, 5:15 p.m.
    City, State: Bowie, MD
    Occupation: Director, Public Policy & Community Outreach
    Comment: My annual salary is over $70,000 a year. After I pay the 
basic bills, gas, haircut, school bills for son, and other Needed items 
I can barely buy groceries for myself and son. However I always find a 
way, and no I am not eligible for any safety-net programs. However I 
work to get eligible people signed up for the programs that will help 
their families. My staff and I cannot work fast enough as the number of 
people at risk of hunger seem to rise daily for these people the farm 
bill is a vital importance to their lives. Food . . . we all need it to 
live, it is our most basic need and the one thing every living being 
has in common. People rely on these programs to live, these programs 
help people get back on their feet and because of these programs people 
are able to contribute to their community, children are able to learn, 
and less illness will come about because of a healthy diet. My question 
to you all is can you name the last five meals you ate, what did you 
have? How much did it cost? Do you know the price of a pound of grapes, 
or a gallon of milk? If not chances are you do not need the safety net 
programs and are not hungry. People that are need the safety-net. 
Please fund these programs at a high level, and review my suggestions 
below. Thank you.
    Farm Bill Priorities for TEFAP:

  <bullet> Make mandatory funding for TEFAP food more responsive to 
        changes in need by providing a trigger that ties funding to 
        unemployment levels

  <bullet> Enhance Secretary of Agriculture's authority to purchase 
        bonus commodities in times of high need for emergency food 
        relief in addition to times of low commodity prices so the 
        program is responsive both to excess supply and excess demand

  <bullet> Reauthorize funding for TEFAP Storage and Distribution Funds 
        at $100 million per year

  <bullet> Reauthorize funding for TEFAP Infrastructure Grants at $15 
        million per year

    Farm Bill Priorities for SNAP:

  <bullet> Protect SNAP by opposing proposals to cap or reduce funding, 
        restrict eligibility, reduce benefits, or otherwise impede 
        access or benefit adequacy. Recent proposals to block grant the 
        program would prevent it from responding effectively to 
        fluctuations in need, and efforts to limit broad based 
        categorical eligibility would increase administrative costs and 
        access barriers.

  <bullet> Restore the cut to the SNAP ARRA benefit boost used to pay 
        for the 2010 child nutrition bill and phase out the boost in a 
        way that protects families from a cliff in benefit levels.

  <bullet> Encourage better nutrition by maintaining nutrition 
        education, incentivizing the purchase of healthy foods, and 
        ensuring that retailer standards balance adequate access to 
        stores with access to a range of healthy foods and moderate 
        prices.

  <bullet> Build on SNAP's strong record of integrity and payment 
        accuracy by issuing guidance to states on the eligibility of 
        lottery winners and college students and upgrading resources 
        and technology for trafficking prevention.

    Farm Bill Priorities for CSFP:

  <bullet> Transition CSFP to a seniors-only program while 
        grandfathering in current participants to promote greater 
        efficiencies and recognize CSFP's evolution to serving a 
        primarily senior population.
                                 ______
                                 
                      Comment of Carter Bannerman
    Date Submitted: Friday, May 18, 2012, 10:51 p.m.
    City, State: Seattle, WA
    Occupation: Retired Broadcast Engineer
    Comment: I eat. So do you. We need strict standards for organic 
growing, and there is almost no economy of scale for it past a pretty 
small farm. Do not allow agribusiness to weaken the standards. Please, 
stern and scientifically reasonable standards and universally safe 
growing and food.
                                 ______
                                 
                       Comment of Lynnet Bannion
    Date Submitted: Friday, May 18, 2012, 3:07 p.m.
    City, State: Loveland, CO
    Occupation: Manager of Food Cooperative
    Comment: Please stop giving billions to large corporations to grow 
GMO commodities, and start supporting small farmers, family farms, 
organic and healthy foods.
                                 ______
                                 
                      Comment of Matthew Bansfield
    Date Submitted: Saturday, May 19, 2012, 7:39 a.m.
    City, State: Worcester, MA
    Occupation: Carpenter, Small Business Owner
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    Most importantly, however, organics are the future.
            Sincerely,

Matthew Bansfield.
                                 ______
                                 
                      Comment of Margaret G. Banta
    Date Submitted: Friday, May 18, 2012, 6:22 p.m.
    City, State: Topeka, KS
    Occupation: Retired
    Comment: I don't like Monsanto choosing the food my family can eat, 
e.g., GMO's. I want more inspectors at factory farms. I want more 
support for small family farms and organic farmers. It's a matter of 
Homeland Security and public health. Thank you!
                                 ______
                                 
                        Comment of Daniel Barach
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: Oswego, NY
    Occupation: College Professor of Music
    Comment: It is time to write a bill that is helpful to small local 
farms that are producing high quality food of an organic nature that is 
friendly to the environment and healthy for the individuals that eat 
them. It is time to stop subsidizing big agribusinesses that pollute 
our environment and soil and that devastates our health. We need to 
invest in non chemical healthful farming practices that build health 
and our soil.
                                 ______
                                 
                        Comment of Marsh Barbara
    Date Submitted: Friday, May 18, 2012, 1:49 p.m.
    City, State: Anchorage, AK
    Occupation: Small Business Owner of Soap Company
    Comment: Please look carefully at preserving the health of our food 
supply by keeping it chemical free and non GMO. Support our farmers and 
farm workers, not the big agribusiness and lobbyists that get the 
corporation's the best deal on the backs of the consumers. Our health 
depends on a good, clean, healthy food supply.
                                 ______
                                 
                         Comment of Kyle Barber
    Date Submitted: Thursday, March 29, 2012, 5:53 p.m.
    City, State: Hamilton, MT
    Occupation: Conservation & Stewardship @ Bitter Root Land Trust
    Comment: Over the past 2 years, the Bitter Root Land Trust has 
partnered with 5 agricultural producers to protect over 1,000 acres of 
working landscape in the Bitterroot Valley. These projects were 
voluntarily initiated by the landowners and funded in part by the Farm 
and Ranchland Protection Program (FRPP), a program of the farm bill. 
The compensation provided to the landowners by the FRPP has supported 
the local and regional economy in a number of ways, from circulating 
through the agricultural services sector to allowing landowners to 
expand their operations. The FRPP program helps perpetuate the scenic, 
economic and cultural values of Western Montana's landscape. Please 
support continued funding to this program in the upcoming farm bill re-
authorization. This program means a lot to your constituents.
                                 ______
                                 
                        Comment of Kiley Barbero
    Date Submitted: Thursday, May 17, 2012, 4:05 p.m.
    City, State: Port Angeles, WA
    Occupation: Interpretive Park Ranger
    Comment: Now is the time for action! Every 5 years Congress 
reauthorizes the National farm bill, which gives massive taxpayer 
subsidies to huge farms growing unhealthy food using toxic chemicals. 
We have the opportunity to transform Federal farm and food policy--take 
action Now! WE want farm policy that helps family farmers produce 
healthy food, vibrant communities and sustains the environment. Please 
vote for our citizens!
                                 ______
                                 
                       Comment of Jeannine Bardo
    Date Submitted: Friday, May 18, 2012, 4:03 p.m.
    City, State: Brooklyn, NY
    Occupation: Teacher
    Comment: Congressman Grimm,

    Please consider the long term health of our food system and our 
citizens. An ethical, sustainable farm community will help to ensure 
the quality of our food remains high and our land will not be poisoned 
and laid to waste. Access to nutritious food should be an American 
right for everyone. A healthy citizenry is the best way to cut health 
care costs substantially. Please use principled and creative foresight 
when making budgetary decisions for your constituents.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                      Comment of Genevieve Barile
    Date Submitted: Friday, May 18, 2012, 9:39 p.m.
    City, State: Seattle, WA
    Occupation: L.M.P.
    Comment: Healthy food is essential to our well being. Our country 
is showing the serious effects of ignoring this fact. Healthy food 
should not be a luxury--it is a basic need for every person.
                                 ______
                                 
                         Comment of Cate Barker
    Date Submitted: Friday, May 18, 2012, 2:23 p.m.
    City, State: Cedar Rapids, IA
    Occupation: Advertising Writer
    Comment: I have a couple of suggestions:

    1. Reduce farm subsidies;

    2. Convert crop insurance from an income guarantee for already 
        profitable agribusinesses to a hedge for family farmers against 
        catastrophic crop failure;

    3. Use the savings to reduce Federal debt and fund programs that 
        improve human health (e.g., increased SNAP benefits) and the 
        environment (reduce soil erosion, protect drinking water by 
        reducing pesticide runoff).
                                 ______
                                 
                        Comment of Dwinna Barker
    Date Submitted: Friday, May 18, 2012, 2:28 p.m.
    City, State: Crowley, TX
    Occupation: Disabled Legal Secretary
    Comment: Just one rule of thumb to go by on the safety of our food 
is that if it is produced by cruelty and inhumane treatment of animals 
or if it is genetically altered to the point that we don't even know 
what we are eating anymore, it is probably not good for humans to 
consume!
                                 ______
                                 
                    Comment of Timothy R. Barksdale
    Date Submitted: Friday, May 18, 2012, 9:43 p.m.
    City, State: Choteau, MT
    Producer/Non-producer: Producer
    Type: Forestry
    Size: Less than 50 acres
    Comment: When my father lost his 7,500 acre farm in 1969, my 
parents divorced. Since my background now includes financial, 
agriculture, wildlife ecology and more my suggestion is to shift the 
farm bill to support small family farms more. I ask you to support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Each of these adds to important revisions in our current direction.
    Thank you,

Timothy R. Barksdale,
Choteau, MT.
                                 ______
                                 
                       Comment of Claire Barnett
    Date Submitted: Friday, May 18, 2012, 8:49 p.m.
    City, State: Hillsdale, NJ
    Occupation: Teacher
    Comment: It is time to stop supporting agribusiness and instead 
support small-scale, family-owned farms. We need to encourage 
sustainable agricultural practices for long-term viability.
                                 ______
                                 
                        Comment of Tracy Barnett
    Date Submitted: Wednesday, May 02, 2012, 6:35 p.m.
    City, State: San Antonio, TX
    Occupation: Journalist
    Comment: Please support a strong farm bill--one that supports 
organic and independent producers, and one that provides support to the 
needy among us through programs such as TEFAP, SNAP and CSFP. Thank 
you!
                                 ______
                                 
                         Comment of Tom Barney
    Date Submitted: Friday, May 18, 2012, 10:13 p.m.
    City, State: Jacksonville, FL
    Occupation: Healthcare
    Comment: Please help us to remove the fine that organic producers 
have to pay to do the right thing and put a Heavy Fine on the factory 
farm and commercial food production industry for all of their 
pollution, poison and land damage. We need to get the subsidies 
redirected from those damaging our lives and put them toward those 
doing the right thing. Thank you.
                                 ______
                                 
                         Comment of Debbie Barr
    Date Submitted: Friday, May 18, 2012, 6:42 p.m.
    City, State: Concord, MA
    Occupation: Senior Services Program Manager
    Comment: It is essential for our health to broaden support for 
organic farmers in the farm bill.
    I ask for your full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286).
    Equally important is to maintain the level of funding for SNAP. I 
work with an Area Agency on Aging, and the Meals on Wheels program is 
all that keeps some of our seniors from serious hunger . . . it is runs 
at a deficit.
    It is simply wrong to continue big ag subsidies and eliminate 
programs for our most vulnerable elders.
    I ask you to fully fund conservation programs, such as the 
Conservation Stewardship Program, and continue to support new entry 
farmer programs.
                                 ______
                                 
                         Comment of Roger Barr
    Date Submitted: Sunday, May 20, 2012, 11:15 p.m.
    City, State: North Fork, CA
    Occupation: Volunteer
    Comment: Our farm bill is grossly counter to the needs of the 
American people. By primarily subsidizing the production of corn and 
soy we are only benefiting agribusiness to the detriment of everyone 
else, and the detriment of our environment. We need to move away toward 
more natural production methods.
                                 ______
                                 
                         Comment of Lisha Barre
    Date Submitted: Saturday, May 19, 2012, 12:17 a.m.
    City, State: Boulder, CO
    Occupation: Physician
    Comment: As a physician I am sick of watching my patient's grow 
sicker and fatter on the processed garbage promoted by Big Food. 
Support for this bill is essential to preserving the health of our 
nation.
                                 ______
                                 
                        Comment of Carlos Barrio
    Date Submitted: Friday, May 18, 2012, 12:36 p.m.
    City, State: Chicago, IL
    Occupation: Software
    Comment: The government should do everything it can to promote the 
production of a wide variety of food, not just yellow corn. It should 
begin infrastructure development for farming capability without fossil 
fuels, food prices should not be influenced by OPEC. There should be a 
big push to have food production, especially meat, scale back its use 
of water. Development of sustainable U.S. based energy infrastructure 
and water conservation should be the top priority. Do not leave for 
tomorrow what can be done today.
                                 ______
                                 
                        Comment of Barbara Barry
    Date Submitted: Friday, May 18, 2012, 3:51 p.m.
    City, State: Woodinville, WA
    Occupation: Organic Gardener
    Comment: Please do not sell out to Monsanto and Con Agra!
    Our country need small farmers who support local communities with 
laws and protection from Big Chema and Big Agra. We are watching how 
you vote and who you are serving, the citizens of the United States or 
Citizens United! Do not pander to your lobbyists!
                                 ______
                                 
                        Comment of Kathryn Barry
    Date Submitted: Thursday, March 29, 2012, 8:30 p.m.
    City, State: Suffern, NY
    Occupation: Retired Educator
    Comment: As you know this bill is terribly important for both the 
present and future health of our people and our land.
    Please subsidize only non-food renewable energy sources e.g., 
switch grass, algae etc. Subsidizing food renewable energy sources, 
e.g., corn, grossly distorts our food supply costs.
    Please shift some of the commodity subsidies given to corporate 
farms to small family farmers growing fruit and vegetable crops. This 
will give us better and more stable, local food sources saving energy 
and providing a healthier food supply.
    Please do not cut any of the nutrition programs such as SNAP. There 
are so many more hungry people these last 3 years. To cut these 
necessary programs--which today do not fully meet their needs--to still 
lower levels is unthinkable.
                                 ______
                                 
                        Comment of Kenneth Barta
    Date Submitted: Saturday, May 19, 2012, 1:21 a.m.
    City, State: Spotswood, NJ
    Occupation: Retired
    Comment: End subsidies to big Agra. Subsidize instead Organic 
Farming. Get rid of Monsanto GM junk. Stop subsidizing ethanol. Stop 
polluting farm land and crops with toxic herbicides and pesticides. 
Stop factory farming of animals and the pollution they cause in 
waterways. Get better inspection of food and meat. Stop harassing raw 
milk producers.
                                 ______
                                 
                         Comment of Bob Bartell
    Date Submitted: Friday, May 18, 2012, 1:56 p.m.
    City, State: Snohomish, WA
    Occupation: Sales
    Comment: We need support for real farmers. Big Ag with its 
unlabeled GMO crops puts us at risk. Can't buy food in the store 
without wondering if it is healthy or a Frankenfood. My family has 
resorted to growing our own vegetables as much as possible because of 
this.
                                 ______
                                 
                         Comment of Lee Bartell
    Date Submitted: Friday, May 18, 2012, 10:24 a.m.
    City, State: New York, NY
    Occupation: Retired Teacher
    Comment: Farm policy needs to focus on actual farmers, Not on the 
multinational corporate farms. Organic farmers need to know that 
there's no GMO seeds blowing onto their land, and that there's help 
when catastrophe comes.
                                 ______
                                 
                       Comment of Richard Bartels
    Date Submitted: Friday, May 18, 2012, 4:19 p.m.
    City, State: Pineville, KY
    Occupation: College Faculty Member
    Comment: Dear Mr. Rogers,

    I realize that budget cuts are having to be a reality that all of 
us must live with. As changes are made in farm subsidies, please make 
sure that conservation gains made through various cooperative 
stimulators for farmers do not get washed away because the new 
provisions don't make the conservation connections. Having good water 
is essential to all of us (famers included) so please make sure that 
the farmers have the necessary incentives to keep our water sources 
clean and safe.
    Thank you and thanks again for your years of faithful service to 
the people of the Fifth Congressional district.

Richard Bartels.
                                 ______
                                 
                        Comment of Kathy Barton
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Northport, NY
    Occupation: Business Owner
    Comment: I want all food to be labeled with all ingredients and I 
want GMO's to be eliminated. I also want the farmers to stop being 
harassed because of the government being in bed with Monsanto. It is 
ridiculous and it doesn't take into effect the people. I also want 
organic foods to be more readily available.
                                 ______
                                 
                        Comment of Duncan Baruch
    Date Submitted: Saturday, May 19, 2012, 1:20 a.m.
    City, State: Portland, OR
    Occupation: Library Clerk
    Comment: The writers of the next farm bill must heed the wishes of 
the majority of American citizens, not the wishes of the few who run 
Big Agriculture. Americans want healthful foods, foods without GMOs and 
poisons. Organic foods grown by small farmers. Foods produced with next 
to no impact on climate. No factory foods.
    To make the above, positive changes will take a drastic and 
courageous effort away from the current model. Now is the time.
                                 ______
                                 
                         Comment of Alma Baruth
    Date Submitted: Friday, May 18, 2012, 2:27 p.m.
    City, State: Mesa, AZ
    Occupation: Housewife
    Comment: They are taking away ``Job'' from American People--
citizens or Not . . . they are working to keep U.S. of A. going . . . 
then take the ``price'' of ``shipping and handling from overseas'' . . 
. then they (Jack) up the Prices on Us . . . . U.S.A. Citizens . . . 
And The `Growers' . . . `Producers' Are The Ones Who Make The Big Money 
. . . On Us . . . !
                                 ______
                                 
                        Comment of Andrea Basche
    Date Submitted: Friday, May 18, 2012, 10:27 p.m.
    City, State: Ames, IA
    Occupation: Graduate Student in Crop Production
    Comment: A great economic opportunity exists in localized markets 
and smaller producer infrastructure. This cannot happen without more 
resources from the farm bill directed toward beginning farmers, access 
to credit and land, insurance for non row crop agriculture. Young 
people in places like Iowa Want to manage the land differently but lack 
the ability to enter into this capital intensive field. The FB policies 
could be directed toward the right rural development and not more of 
the same.
                                 ______
                                 
                        Comment of Stuart Basden
    Date Submitted: Friday, May 18, 2012, 1:20 p.m.
    City, State: Chicago, IL
    Occupation: Web Developer
    Comment: Agricultural subsidies need to be reversed, so that they 
encourage the small- to mid-sized farms, encourage sustainable farming 
practices, and encourage farmers to protect their land. We need to tax 
those farms that damage the land, whether through factory farms, mega-
ranches, or monocropping.
    Our farmland needs diversity to be robust and stable, and with the 
growing unpredictability of the climate, we need to make our food more 
secure. The way to do this is by banning monocropping, and encouraging 
seed diversity and crop diversity.
                                 ______
                                 
                         Comment of Jane Basler
    Date Submitted: Wednesday, May 16, 2012, 10:17 p.m.
    City, State: Saint Louis, MO
    Occupation: Director of Construction Management
    Comment: Help the small farmers survive and allow for diversity and 
choices besides corporate Agribusiness. Continue to provide 30 million 
to small disadvantaged farmers. America was built by farming 
communities!
    Thank you for your attention to this matter and consideration!

Jane Basler.
                                 ______
                                 
                         Comment of Carol Bason
    Date Submitted: Friday, May 18, 2012, 4:22 p.m.
    City, State: Santa Barbara, CA
    Occupation: Psychotherapist
    Comment: The food system in the United States is deeply broken. 
Subsidies are paid for products which become cheaply priced junk food 
(corn and soy), producing monumental health problems and obesity, while 
``real food'' (fruits and vegetables) become more and more expensive. 
Small organic farms are pushed to the brink, while agribusiness holds 
all the power and money. I have very little hope that Members of the 
House of Representative will change this situation as you are addicted 
to the money which comes to you from large corporations.
                                 ______
                                 
                      Comment of Virginia Bastone
    Date Submitted: Friday, May 18, 2012, 1:45 p.m.
    City, State: Hawthorne, NY
    Occupation: Teacher & Nutritionist
    Comment: Pesticides affect our youth's nervous system . . . Why do 
we have to continue to poison our food system? Please consider safer 
alternatives that are not toxic.
    Choosing safer alternatives would also reduce health care costs 
since there would be less toxins in our food cycle. Thank you for 
considering alternatives. Studies have also shown more nutrients are 
retained when food is grown organically. Our bees would continue to 
pollinate fruits and vegetables. Thank you again for strengthening our 
farm bill to create better health for our nation!
                                 ______
                                 
                      Comment of Annette Batchelor
    Date Submitted: Friday, May 18, 2012, 4:46 p.m.
    City, State: Newcastle, CA
    Occupation: Teacher
    Comment: Our country needs legislation to protect against chemicals 
in our food and will benefit from a fair and healthy farm bill. Please 
do the right thing and support the Organic Farm Bill and also fight big 
companies such as Monsanto to label our foods GMO when used in our 
food.
                                 ______
                                 
                         Comment of Diane Bates
    Date Submitted: Friday, May 18, 2012, 5:05 p.m.
    City, State: Booneville, MS
    Occupation: Disabled
    Comment: Set policy that encourages small family farms and limits 
big corporate farming. Outlaw all genetically altered food, eliminate 
use of pesticides, herbicides and fungicides. Outlaw hybrid seeds. Get 
farming back to nature's way; organic, rotating crops, replenishing the 
soil nutrients, seed bearing crops, etc.
                                 ______
                                 
                       Comment of Jackie Battreal
    Date Submitted: Tuesday, May 15, 2012, 8:43 a.m.
    City, State: Irving, TX
    Producer/Non-producer: Producer
    Type: Fruits, Livestock, Nuts, Vegetables, Other
    Size: 50-150 acres
    Comment: I would like to have or know of incentives for second 
generation farmers who inherit their parents' property. My dad was a 
rancher until his death in 1997. My 91 year old mother has continued to 
live there but has leased the property for income and tax benefits. I 
will inherit the property and would like to have it producing a profit 
as I lost my job last year and at my age of over 60 have not been able 
to find other employment.
    Are there programs for me as a woman and second generation farm 
owner to help me develop the farm for income?
    Thank you.
                                 ______
                                 
                       Comment of Berenice Bauer
    Date Submitted: Friday, May 18, 2012, 12:16 p.m.
    City, State: Glen Ellyn, IL
    Comment: Although I am not a farmer nor do I deal in farm products 
other than as a consumer. I feel that whatever is put into a farm bill 
it should include the study of organic crops. I feel that the more we 
use genetically altered foods the more dangerous our foods become to 
humans. How to get the most from organic crops should be of primary 
concern.
                                 ______
                                 
                        Comment of Chante Bauer
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: Lincoln, NE
    Occupation: Nonprofit
    Comment: In the upcoming farm bill, please place emphasis on small-
scale farmers versus large industrial farming practices. We as a 
country need to focus on environmentally sustainable agriculture 
practices that do not utilize mono-culture crops; heavy use of 
pesticides, herbicides, and fungicides; GMO seed; fossil-fuel burning 
equipment; and 1,000+ mile transit of foods. Staple crops like corn and 
soybeans should not be heavily subsidized. Additionally, Confined 
Animal Feeding Operations (CAFO) needs to be replaced with grass-fed 
cattle and pasture-raised pork and chickens. The current farming 
infrastructure is depleting our natural capital, while giving 
preferential treatment to large industrial farming corporations. I urge 
you to transfer this infrastructure to empower the small-scale farmer 
who acts as nurturer and steward of our food and our planet.
    I thank you for your thoughtful consideration in this matter.
                                 ______
                                 
                         Comment of Katya Bauer
    Date Submitted: Friday, May 18, 2012, 5:56 p.m.
    City, State: New York, NY
    Occupation: Artist
    Comment: America at its core is about small farmers who have always 
understood what sustainability means. Without respect for the land, 
there is no food and no future. It's that simple.
                                 ______
                                 
                        Comment of Leslie Bauer
    Date Submitted: Sunday, May 20, 2012, 10:21 p.m.
    City, State: Austin, TX
    Occupation: Nutritional Educator and Chef
    Comment: Folks, we are running out of time. Now, more than any 
other time in the history of this planet, we need to make serious 
changes in how we produce food, how we share food and how much energy 
we need to produce whole foods! We are Dying as a nation because we are 
not grasping the problem at the core of the nutritional level. We need 
organic, nutrient dense foods that truly nourish the human body. We 
need to put animals back on pasture, where they belong, eating grass to 
make the fats, protein and nutrients that we need; no more manmade crap 
that is killing us! No pesticides, herbicides, hormones, GMO's, 
artificial flavorings, rancid fats, toxic poisons in our food, our air, 
our soil, our water! Wake Up Folks, we are dying with all of these 
horrific poisons in our world and we can make the changes that we need 
to be healthy. Big agribiz has strangled this nation and the people we 
elect are in accordance with their lies. Wake Up and know that we have 
a responsibility here, to ourselves and each other, to do the very best 
we can with what our Earth has provided for us. We have poisoned 
ourselves enough, and the evidence is everywhere; cancer, heart 
disease, diabetes, obesity . . . you name it, we have created it with 
our lack of care towards our planet and all her gifts of abundance.
    We elect you officials to actually Care and educate yourselves 
about the issues, not be paid off for what? You will still have to eat 
these poisoned foods, breathe this toxic air, drink polluted water. DO 
you not `get it' yet? Are you really all that stupid? Or are you all 
just lying to yourselves and selling out to the rest of us? It is more 
than tragic, and just plain disgusting what has happened over the past 
60 years in this country. People are so hurting, so confused, so angry 
at what is going on, and you people, those in power, have the ability 
to Lead the people of this great nation! Start with the most 
fundamental of all the issues, with our food. If you do not, then I 
hope you have found another planet to go to. Mother Earth has had just 
about enough of the poison and cannot take much more of it. There is no 
question in my mind that we are rapidly destroying ourselves and we 
need radical changes made to out farm bill if we are to survive. Wake 
Up and do your jobs and make the necessary changes that will Help our 
great nation!
                                 ______
                                 
                        Comment of Rachel Bauer
    Date Submitted: Saturday, May 19, 2012, 7:45 a.m.
    City, State: Memphis, TN
    Occupation: University Professor
    Comment: Please fight to maintain the EQIP Organic Initiative and 
do all that you can to endorse local foods and farms. It is also 
extremely important to me that beginning farmers/ranchers are 
supported--I firmly believe that big agribusiness needs to be reined in 
because they are rapidly causing the decline of food standards here in 
the U.S. Big agribusiness has a stranglehold on American food--it needs 
to be controlled.
                                 ______
                                 
                        Comment of Helen C. Baum
    Date Submitted: Friday, May 18, 2012, 6:17 p.m.
    City, State: Manteo, NC
    Occupation: Speech and Language Pathologist
    Comment: It is of utmost importance that we protect our farm lands 
and produce organic foods. Every year we have more people in our 
country dying of cancer and other neurological diseases. We cannot 
afford to cause greater risk to our people, land and environment. How 
many people in our district do you know who have cancer or neurological 
diseases? That number grows daily. Please do your part to protect the 
people in your district!
            Thank you,

Helen C. Baum.
                                 ______
                                 
                         Comment of Gail Bauman
    Date Submitted: Wednesday, May 09, 2012, 4:25 p.m.
    City, State: Incline Village, NV
    Occupation: Worker
    Comment: In order for human beings to live they need to have water 
and food. Do you think it might be possible that the people that want 
to cut food programs have Never Been Hungry? Maybe if they went just 
one day without food they would realize the importance of food and how 
important it is for mental functioning, physical functioning and most 
important in order to Live! In my opinion the job of Government is to 
assist the people so that their lives can be as happy and healthy as 
possible?
    Have a Beautiful Day!

Gail.
                                 ______
                                 
                       Comment of Joseph Baumann
    Date Submitted: Friday, May 11, 2012, 1:35 p.m.
    City, State: Cottonwood, AZ
    Occupation: Retired
    Comment: The farm bill should help and protect sustainable organic 
farmers. That includes protection via seed program and pesticide over-
spraying from big agri producers such as Monsanto and there health 
untested GMO and pesticiding plant DNA.
                                 ______
                                 
                      Comment of Susan Baumgartner
    Date Submitted: Wednesday, May 16, 2012, 3:46 p.m.
    City, State: Waukesha, WI
    Occupation: Mom
    Comment: I want a farm bill that gives schools the means to feed 
kids whole fruits, grains, vegetables, dairy and meats that are grown 
by sustainable farms and not CFOs and monoculture-based corporations. I 
want money spent to promote farms that practice biodiversity and crop 
rotations. I want the government to support cutting-edge sustainable 
food production that supports health in people and the environment.
                                 ______
                                 
                       Comment of Jenn Baumstein
    Date Submitted: Friday, May 18, 2012, 9:57 a.m.
    City, State: Putnam Valley, NY
    Occupation: Nonprofit Food Community Member
    Comment: Hello,

    I am both a small personal farmer and a member of a nonprofit that 
promotes local food production and education. We HAVE to work to make 
our farm bill sustainable and fruitful. Our students/constituents/
clients are passionate about a world in where we can all have access to 
good, clean food. It is Totally unacceptable for us to provide 
subsidies to farmers who help feed our ever fattening and lazy nation. 
We want to promote moving--eating--Living well. Supporting young farms, 
small family farms, young farmers is essential. Please think about all 
of us who are trying to get good food out there when making these 
decisions. We want our government's support, not their frowned 
eyebrows. Thank you.
                                 ______
                                 
                    Comment of Adrienne Moore Baxter
    Date Submitted: Friday, May 18, 2012, 4:46 p.m.
    City, State: Olathe, KS
    Occupation: Registered Dietitian Licensed in Kansas and Missouri; 
Telehealth Provider; Clinical Instructor of Health Profession Students
    Comment: About the Food and Farm Bill . . .

  <bullet> Please fund programs that support beginning and socially 
        disadvantaged farmers and ranchers, organic farming, regional 
        farm and food economies, and rural development.

  <bullet> We need more farmers and ranchers [most are as old as I am--
        60 years]. Kansans want more sustainable food production. Food 
        service managers are seeking local producers prepared to sell 
        to institutions whose customers want fresh food.

  <bullet> Build more economic opportunity in our food system; Support 
        family farmers that really need help, not the biggest farms 
        that don't: End subsidies (aka direct payments and 
        countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts. Improve CSP by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                       Comment of Jessica Baxter
    Date Submitted: Monday, May 07, 2012, 2:40 p.m.
    City, State: Tucson, AZ
    Occupation: Food Banker
    Comment: Please do not make cuts to the Federal feeding programs 
that support the most vulnerable members of our community. Children, 
seniors, working poor, and the homeless should not pay the price for 
the richest Americans to enjoy tax breaks. Feeding people is an 
American value. It is a human value. It is the right thing to do. From 
the far right to the far left--Americans support these feeing programs.
    Emergency Food Boxes, Food Stamps, and CSFP are more necessary now 
than ever before. Do not cut these programs. Not now, and not ever.
                                 ______
                                 
                        Comment of Sandra Bayes
    Date Submitted: Friday, May 18, 2012, 3:40 p.m.
    City, State: Flagstaff, AZ
    Occupation: Retired
    Comment: Farm subsidy reform is badly needed now! We need to place 
limitations on crop insurance subsidies and to re-attach soil erosion 
and wetland conservation requirements to crop insurance programs.
    It is time for the Federal government to start placing the health 
of it's citizens first rather than placing the monetary gain of large 
farm corporations first.
                                 ______
                                 
                         Comment of Laura Beach
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Yadkinville, NC
    Occupation: Pastor
    Comment: Before becoming a pastor, I worked on a small-scale, 
family farm that used sustainable methods of production. For the health 
of our people, our economy, and our land, please put measures in the 
farm bill that support sustainable agriculture and family farms. Write 
policies that increase access to good, healthy food for the most 
vulnerable in our society, not policies that increase the profits of 
agribusinesses that have created the health crises in our country.
                                 ______
                                 
                         Comment of David Beane
    Date Submitted: Friday, May 18, 2012, 2:54 p.m.
    City, State: Portland, ME
    Occupation: Teacher
    Comment: The House Agriculture Committee needs to realize that the 
American people want their food supply to be safe and healthy. This 
most definitely means protecting organic and healthy food subsidies.
                                 ______
                                 
                       Comment of George Beattie
    Date Submitted: Saturday, May 19, 2012, 1:29 a.m.
    City, State: Decatur, GA
    Comment: At a time when healthcare is of such critical importance 
in the life of our nation, nothing could be more germane to that issue 
than ensuring the highest standards of healthy foods and nutrition. A 
substantive, forward-thinking organic food bill is the lynchpin in 
establishing those standards. To the members of the Committee, this is 
your chance to really make a difference.
                                 ______
                                 
                      Comment of Kathleen Beaubien
    Date Submitted: Sunday, May 20, 2012, 11:39 a.m.
    City, State: Farmington, ME
    Occupation: Retired Teacher
    Comment: I want a farm policy that encourages and supports small 
farms, family farms, organic farms, and that protects and replenishes 
the Earth, the water, and the air--not just in our country but all 
around the planet--one that respects the physical And economic 
realities of other countries. If used prudently, this Earth has the 
water, soil, and capability to sustain us all in a healthy way. We must 
use our best thinking to be good stewards of the earth--to preserve, 
protect and defend it from exploitation for economic gain without 
regard to its health or that of the people it supports and feeds.
    Water is sacred, soil is sacred, and we need to protect and 
replenish these resources, fully aware of our impact, not just in our 
country, but upon the whole planet. It is, as you know, all connected.
                                 ______
                                 
                      Comment of Gretchen Beaubier
    Date Submitted: Saturday, May 19, 2012, 11:47 p.m.
    City, State: Albuquerque, NM
    Occupation: Homemaker
    Comment: As a consumer, I am concerned with the availability of 
fresh, safe food available at the grocery stores. I want food labeled 
in a way that I can make rational and informed decisions about my 
purchases; GMO-content goods should be labeled as such.
    I also believe that we must not solve our budget problems on the 
backs of those experiencing food insecurity, including our most 
vulnerable--our children, the elderly, and the disabled.
    I firmly believe that we should create an even ``plowing'' field by 
fully funding programs that support beginning and socially 
disadvantaged farmers and ranchers, organic farming, regional farm and 
food economies, and rural development. We need more farmers and 
ranchers, more sustainable food production, and more economic 
opportunity in our food system.
    We should support family farmers that really need help, not the 
biggest farms that don't: We must end subsidies (aka direct payments 
and countercyclical commodity programs), and replace them with 
loophole-free agriculture risk coverage. Additionally, implement a cap 
on crop insurance premium subsidies.
    I do Not want us to continue with senseless subsidies for giant 
conglomerate farmers and feed-lot polluters.
    I want Congress to ensure that limited conservation funding 
maximizes lasting environmental benefits: Limit funds to Concentrated 
Animal Feeding Operations (CAFOs) for animal waste management 
infrastructure by eliminating the Environmental Quality Incentives 
Program (EQIP) Livestock Set-aside and protect the Conservation 
Stewardship Program (CSP) from disproportionate cuts, and improve it by 
ranking applications solely on their conservation benefits.
                                 ______
                                 
                      Comment of Mallory Beaudreau
    Date Submitted: Wednesday, May 16, 2012, 1:43 a.m.
    City, State: Portland, OR
    Occupation: Educational Counselor
    Comment: The farm bill is an enormous opportunity to serve the 
people of the United States, and not corporate interests. Please bear 
in mind that an unprecedented number of Americans are using 
supplemental food aid, and this is often the only assistance they have 
as they search for jobs. Meanwhile, subsidies are going to gigantic 
agricultural corporations to produce cash crops that are fueling diet-
related diseases such as diabetes and heart disease. Please remember 
that the spirit of the food bill is to grant access to healthy, 
nutritious food to Americans, and not to serve the greed of the few.
                                 ______
                                 
                       Comment of Kathy Beaulieu
    Date Submitted: Friday, May 18, 2012, 12:05 p.m.
    City, State: Fall River, MA
    Occupation: Grandmother
    Comment: Congress has changed nothing since 1975. There were the 
same problems with our food supply back then. Red food dye from Mexico 
was harming our food supply, too much sugar in cereal, too much 
advertising of unhealthy foods to children were prevalent back then. We 
need better labeling, no GMO allowed in our food supply, more food 
stamps for children and elderly.
                                 ______
                                 
                        Comment of Janet Beazlie
    Date Submitted: Friday, May 18, 2012, 8:20 p.m.
    City, State: Forestville, CA
    Occupation: Gardening Teacher and Sustainability Consultant
    Comment: We need to have a farm bill that meets the health & food 
needs of Americans and the small family farmers' needs. We need 
incentives for organic growing methods and for diverse crops. We need 
incentives for habitat and riparian restoration and conservation 
easements. We need incentives for clean energy farms with solar, wind, 
biomass, and other renewable, green energy. We need incentives to 
sequester carbon on farms and drop greenhouse gas emissions. We need to 
support farmland acquisition by young people. We need farming education 
for young adults and school gardens in K-12. We need to stop supporting 
large corporate farming agribusinesses from controlling U.S. 
agriculture. We need to have our seeds protected from GMOs and 
corporate control.
                                 ______
                                 
                         Comment of Daniel Beck
    Date Submitted: Saturday, May 19, 2012, 3:42 p.m.
    City, State: Redondo Beach, CA
    Occupation: Hazardous Waste Specialist
    Comment: We need clean organic foods with no GMO's that give us 
cancer. We need non pesticide laced foods. We need good men, with sold 
morals representing us. We need people who work for a living making 
decisions for the people who work for a living, not money laundering 
fake lobbyist for large corporations with no pulse. We need the America 
that the world loved and looked to for guidance and help. We need are 
men to stop selling us out for short sighted dreams and the quick buck. 
We need my old ancestors back, because the new breed of American man is 
disgusting and Arrogant. We need a miracle to escape the morons running 
this country, and continually make the decisions. I support the 
following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).
                                 ______
                                 
                        Comment of Marylin Beck
    Date Submitted: Friday, May 18, 2012, 1:53 p.m.
    City, State: Dedham, MA
    Occupation: Retired
    Comment: We need to know where our food is grown and that it is not 
filled with hormones and antibiotics. Local farmers are best at 
assuring the quality of their meat and produce. They should be allowed 
to butcher the meat they raise. They should be given subsidies to bring 
food to the many food deserts that exist in this country. Stop 
subsidizing Agribusiness.
                                 ______
                                 
                        Comment of Diane Becker
    Date Submitted: Friday, May 18, 2012, 12:42 p.m.
    City, State: Gillett, PA
    Occupation: Homemaker, Gardener, Artist
    Comment: There is nothing more important for the health of all 
Americans than a healthy food supply. That means foods produced without 
the use of hazardous chemicals and using organic methods. This is done 
very well on small family owned, local farms, and, I hope, for many in 
our own gardens. The small farms need protection from the corporations 
that seem to care nothing the environment we must all live in or for 
the American people in general.
                                 ______
                                 
                        Comment of Elaine Becker
    Date Submitted: Friday, May 11, 2012, 4:04 p.m.
    City, State: Roanoke, VA
    Comment: Stop using the farm bill as Corporate Welfare for huge 
agribusiness. This is suppose to help Small farmers offer diverse 
produce to the public to help nutritional intake!
                                 ______
                                 
                      Comment of Elizabeth Beckman
    Date Submitted: Friday, May 18, 2012, 3:06 p.m.
    City, State: Florence, CO
    Occupation: Website Designer, Marketing, Used Car Sales
    Comment: Please discontinue all farm subsidies. The current 
policies result in corruption and flooding the market with cheap high 
fructose corn syrup which is making Americans obese.
                                 ______
                                 
                        Comment of Deanne Bednar
    Date Submitted: Friday, May 11, 2012, 10:58 a.m.
    City, State: Oxford, MI
    Occupation: Sustainability Educator
    Comment: We need and want food systems that support small farmers, 
value-added, organic systems. In order to meet our needs now without 
diminishing the ability of the future to meet their needs we absolutely 
need non-toxic and economically friendly food production.
                                 ______
                                 
  Submitted Statement by Barry Bedwell, President, California Grape & 
                           Tree Fruit League
    The California Grape & Tree Fruit League (League) is a voluntary, 
nonprofit agricultural trade association that represents fresh grapes, 
berries and deciduous tree fruit grown in California. CGTFL is the key 
public policy organization that represents the needs and interests of 
its members by advocating on legislative and regulatory issues, at 
state, Federal, and international levels. On behalf of our membership, 
I thank you for the opportunity to discuss the current farm bill 
reauthorization effort and am encouraged to work with you to ensure 
adequate recognition of California's specialty crop sector.

    The League is a Steering Committee member of the Specialty Crop 
Farm Bill Alliance, a national coalition of more than 130 organizations 
representing growers of fruits, vegetables, dried fruit, tree nuts, 
nursery plants and other products. The Alliance was established to 
enhance the competitiveness of specialty crop agriculture and improve 
the health of Americans by broadening the scope of U.S. agricultural 
public policy.

    The Alliance successfully advocated for a 2008 Farm Bill that for 
the first time made a strong investment in specialty crops. The bill 
included provisions that helped the U.S. specialty crop industry 
compete and grow in domestic and global markets. It assisted specialty 
crop producers in many areas, including:

  <bullet> Establishing a Specialty Crop Research Initiative to develop 
        and disseminate science-based tools to address the needs of 
        specialty crop producers.

  <bullet> Increasing funding for state-level specialty crop grants 
        that focus on local, regional and statewide programs to enhance 
        producers' ability to compete in the marketplace and provide 
        consumers with safe, abundant food.

  <bullet> Enhancing critical trade assistance and market promotion 
        tools that will grow international markets for specialty crops.

  <bullet> Investing in prevention and mitigation programs and tools to 
        combat invasive pests and diseases, which cost the U.S. economy 
        billions of dollars per year.

    The California Grape & Tree Fruit League, as part of the Alliance 
effort, stresses the importance and desire to continue the strong 
investment in specialty crops in the 2012 Farm Bill reauthorization 
effort. With release of farm bill legislative language by the Senate 
Agriculture Committee we are encouraged by the intent to continue 
investments in many important areas. However, it is imperative that as 
the debate shifts to the House, your advocacy on the House Agriculture 
Committee protects the following areas, as well as, serves to support 
other vital components of the legislation (as recommended by the 
Alliance):

    Title III--Trade:

    Market Access Program (MAP):

    Policy Recommendation--The Specialty Crop Farm Bill Alliance, 
representing a broad range of interest and participants in the Market 
Access Program, supports the Coalition to Program U.S. Agricultural 
Exports to maintain funding for MAP at no less than $200 million per 
year.
    Mandatory Funding--$200 million per year ($1 billion over 5 years); 
Senate language contains $200 million per year mark.

    With over forty percent of fresh table grapes and approximately 20 
percent of tree fruit going to markets outside the U.S., the Market 
Access Program with a proven track record of success is a key and vital 
component that should be maintained at the $200 million per year level. 
A program with a 35:1 return on investment ratio is something to be 
admired not cut.

    Technical Assistance for Specialty Crops (TASC):

    Policy Recommendations:
    Funding--Mandatory funding at no less than $9 million per year. 
This is the level of mandatory funding authorized for Fiscal Years 2013 
and 2017.
    Proposed Changes to Authorizing Language--The program should 
provide direct assistance through public and private-sector projects as 
well as technical assistance to remove, resolve, or mitigate sanitary 
and phytosanitary and technical barriers to trade. These barriers are 
defined under the World Trade Organization Technical Barriers to Trade 
(TBT) Agreement.
    Quick Response Capability--TASC was originally designed to be a 
nimble and effective way to help the private sector resolve technical 
barriers to trade. These barriers can emerge unexpectedly and require 
fast action to prevent market closures and trade disruptions in 
established markets. TASC was also designed to take advantage of 
opportunities that arise on short notice, such as meetings or travel by 
U.S. officials to foreign countries where industry representation might 
be of assistance. With the positive growth in funding and the expansion 
of projects designed to be carried out over multiple years, the process 
for approving projects has become more rigid, with a focus on 
allocating funds to increasingly larger projects. Congress should 
direct the Secretary to hold in reserve an adequate amount of TASC 
funds for quick response projects that might emerge on short notice 
over the course of the year as well as establish an approval process 
for such projects in order for decisions to be made in less than a 
week. Quick response language not included in Senate language.
    Mandatory Funding--$9 million per year ($45 million over 5 years); 
funding of $9 million per year included in Senate language.

    Technical Assistance for Specialty Crops (TASC) grants also have 
proven to be effective in removing, resolving or mitigating sanitary 
and phytosanitary technical barriers to trade. Our organization has 
witnessed firsthand what TASC grants have been able to accomplish. In 
our case, Mexico has now become the number two market for stone fruit, 
peaches, plums, nectarines and apricots, due specifically to this 
program. The Alliance recommends mandatory funding at $9 million 
annually. This was the figure contained in the Senate markup.

    International Maximum Residue Limits (MRL) Database:

    Policy Recommendation--The SCFBA should coordinate with the Minor 
Crop Farmer Alliance to develop its policy recommendation. The Minor 
Crop Farmer Alliance is working with FAS to develop a permanent funding 
solution for the International MRL database. The level of yearly 
funding required is estimated at less than $500,000. Congress should 
fund this program at $500,000.
    Mandatory Funding--$500,000 per year ($2.5 million over 5 years); 
Mandatory funding not included in Senate language.

    Another key component of growing trade for U.S. growers revolves 
around the need to maintain a database for international Maximum 
Residue Limits (MRL's). We feel it is very important to recognize this 
fact by allocating mandatory funding of $500,000 per year to maintain 
such a database. The Senate version currently does not contain this 
amount.

    Title VII--Research

    Enhancement of the Specialty Crop Research Initiative (SCRI):

    Policy Recommendations:
    Research Priorities--Congress should make changes that expand 
research priorities for specialty crops for crop characteristics, 
threat from pest and disease, handling and processing. In addition, 
Congress should incorporate stakeholder outreach when developing these 
priorities. Finally, Congress should provide USDA the flexibility to 
not require funding for each of the priority areas.
    Review Panel--The SCFBA recommends Congress institute a policy that 
establishes a two-step process for reviewing research project under 
SCRI. The first review would be conducted by industry stakeholders. The 
stakeholder review panel would be focused on industry-specific 
proposals and would be asked to rank from ``relevant to not for further 
consideration.'' The second panel would be similar to the current SCRI 
review process established under the 2008 Farm Bill and would be based 
on scientific merit around the proposals.
    Mandatory Funding--$100 million per year ($500 million over 5 
years); Senate language establishes baseline for SCRI of $50 million 
(FY13 $25 million, FY14-15 $30 million, FY 16 $65 million, FY17 $50 
million).

    In regard to enhancement of the Specialty Crop Research Initiative 
(SCRI), we concur with the Alliance recommendation that establishes a 
two-step process for reviewing research project under SCRI. The first 
review would be conducted by industry stakeholders. The stakeholder 
review panel would be focused on industry-specific proposals and would 
rank proposals accordingly. The second panel would be similar to the 
current SCRI review process established under the 2008 Farm Bill and 
would be based on scientific merit around the proposals. We also agree 
with those that would make research available to qualifying 
universities and not just land-grant institutions. The Alliance 
recommends mandatory funding of $100 million per year. The Senate 
language establishes a baseline of SCRI of $50 million with FY 13 being 
$25 million, FY14-15 $30 million, FY16 $65 million and FY17 $50 
million.

    Title X--Horticulture and Organics:

    Specialty Crop Block Grant Program:

    Policy Recommendations:
    No-Match Requirement--Congress should maintain the non-requirement 
of matching funds for grant recipients. However, states should be 
required to gather and maintain matching-fund data.
    Grower-Level Projects--Congress should encourage states to further 
expand or prioritize grower-level projects. There are concerns in the 
industry that research critical to grower needs is not being adequately 
funded.
    Strengthening Definitions--While states are required to undergo a 
thorough review process of grant requests, Congress should encourage 
states require applicants to provide appropriate justification for how 
a project ``enhances the competitiveness'' of specialty crops. By 
addressing this important issue, Congress will ensure funds are being 
targeted to the purpose of the block grant program while enhancing the 
integrity of this critical specialty crop policy tool.
    Multi-State Projects--Due to the growing issues that impact 
specialty crops that are commodity specific or regionally critical, the 
SCFBA encourages USDA to consider policy options to help states 
facilitate the utilization of multi-state partnership projects. The 
SCFBA recommends Congress include language allowing USDA, at the 
initiation of two or more states or applicant(s) seeking to conduct a 
multi-state project, to coordinate grant approval through the multiple 
state processes. Senate language includes funding which ramps up from 
$1 million (FY13) to $5 million (FY17). Senate language has program 
targeting projects on Food Safety, Commodity Specific Issues, Pest & 
Disease and other programs deemed necessary by the Secretary.
    Mandatory Funding--Support Senate recommendation of $70 million per 
year (Current baseline is $55 million per year).

    Block grants have proven, especially for states like California, to 
be an effective and efficient way to address specific concerns and 
challenges for specialty crops. We support the Senate recommendation of 
$70 million per year as well as language allowing USDA, at the 
initiation of two or more states or applicant(s) seeking to conduct a 
multi-state project, to coordinate grant approval through a multiple 
state process.

    Title X--Pest and Disease Programs:

    Plant Pest and Disease Management and Disaster Prevention:

    Policy Recommendation--The SCFBA recommends an increase in 
mandatory funding of $25 million per year for each of the next 5 years 
($125 million).
    Mandatory Funding--$75 million per year ($375 million over 5 
years); Senate language sets funding at $60 million (FY13-16), $65 
million (FY 17). Current funding level, per 2008 Farm Bill, is set at 
$50 million per year.

    Given the growing trend of an increasing introduction of invasive 
species, no area of this bill may be more important than to adequately 
fund efforts related to plant pest and disease management and disaster 
prevention. Current funding level, per 2008 Farm Bill, is set at $50 
million per year. The SCFBA recommends an increase in mandatory funding 
of $25 million per year for each of the next 5 years. Currently Senate 
language sets funding at $60 million (FY13-16), $65 million (FY17).

    In summary, the so called farm bill is many things. Most, as we 
know, has little to do with actual farming. I have attempted to 
highlight just a few prime areas that are of direct importance to our 
members and ultimately consumers. We also want to mention our support 
for air quality provisions in the bill which will be addressed by some 
of our colleagues and which is absent in the Senate version. In 
addition, we do not want to discount the importance of nutrition 
programs in this legislation. Whether it is the Fresh Fruit and 
Vegetable program, the DOD Fresh program or the fruit and vegetable 
incentives for the SNAP program, we concur with the importance that the 
current Senate language has placed on these areas as well. Because in 
the final analysis this legislation can do much to combat the obesity 
epidemic this nation faces by changing individual eating habits to 
consume more healthy fruits, vegetables and nuts. And all of us win in 
the end when we have a healthier population.

    Sincere thanks to you Congressman Cardoza, Congressman Costa for 
all of your efforts. We all know that your work is cut out for you in 
the House and we very much hope that the Valley Congressional 
delegation will show the bipartisanship leadership necessary in these 
difficult fiscal times to produce a bill that will appropriately invest 
in specialty crops for the benefit of all. Thank you again for this 
opportunity to speak to you today.
                                 ______
                                 
                         Comment of Dianne Bee
    Date Submitted: Saturday, May 19, 2012, 1:07 a.m.
    City, State: Salina, KS
    Occupation: Consumer
    Comment: No Farm Bill For Anything But 100% Organic Farms Or Those 
Switching To Organic With Absolutely No Genetically Modified Organisms.
    No more of my tax dollars should be going to unsustainable farm 
practices that destroy the environment, kill the bees, pollute the gene 
pool of my body and all of the population, and contribute to the 
growing disease problems including cancer, autoimmune diseases, 
obesity, and countless other diseases. GMOs that my tax dollars 
subsidize are grown by corporations that do not need nor deserve any 
support. I'm tired of lobbyists paying you off to vote for farm bills 
and GMOs, all while stomping on the Bill of Rights and undermining 
everything that this country used to stand for. It's time you take your 
oaths seriously or ship out, preferably to a communist third world 
country--after your citizenship rights are stripped--where your ideas 
will fit in.
                                 ______
                                 
                         Comment of Kara Beebee
    Date Submitted: Saturday, May 19, 2012, 2:47 p.m.
    City, State: Columbus, OH
    Occupation: Student
    Comment: A subsidized insurance program congress proposes to 
replace what exists with will allow giant commodity farmers and 
insurance companies to walk away with billions in taxpayer dollars 
while putting the land, soil and environment at greater risk.
    We need Real reform. Think of local and small farmers, the true 
members of our American community, when you are reforming this bill. 
Thank you.
                                 ______
                                 
                      Comment of Judy & Doug Beers
    Date Submitted: Sunday, May 20, 2012, 8:40 p.m.
    City, State: Honeoye Falls, NY
    Occupation: Educator
    Comment: We need a farm bill that helps farmers, not farm factories 
and corporations like Monsanto. Put our Healthy food supply and the 
welfare of our independent and co-op farmers at the top of priorities 
where it belongs.
                                 ______
                                 
                         Comment of Alice Beetz
    Date Submitted: Sunday, May 13, 2012, 12:01 p.m.
    City, State: Fayetteville, AR
    Occupation: Retired
    Comment: Please work to create a farm bill that supports farming 
sustainably. It's time to reduce subsidies for commodity cropping. It's 
time to link financial support to practices and farmers who conserve 
our soil and protect fresh water resources for all of us.
    Investing in today's and tomorrow's farmers makes economic sense in 
general. And it also helps ensure a continued supply of food for 
everyone. Food security!
    Let's figure out how to produce good food without such dependence 
on petroleum.
    Can you resist those whose lobbying means money in your coffers? 
Can you vote for the long-term good of the country's agricultural 
sustainability?
    We are watching to see.
    If yes, I will vote for you.

Alice Beetz,
Fayetteville, AR.
                                 ______
                                 
                          Comment of Linda Beg
    Date Submitted: Friday, May 18, 2012, 9:39 a.m.
    City, State: Denville, NJ
    Occupation: Administrator
    Comment: All power in the hands of the few always ends in disaster. 
The uncontrolled use of dangerous pesticides and GMO's in big AG 
supports Big Pharma and destroys our bees, people and the planet. 
Support for family farms is where money should go and distributed 
fairly to all, then if you have someone misusing the system, the rest 
balances it out, not so when all the power of food production is in too 
few hands.
                                 ______
                                 
                        Comment of Bill Behrend
    Date Submitted: Thursday, May 17, 2012, 2:16 p.m.
    City, State: Albany, GA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: I am a beekeeper. The best thing the new farm bill can do 
is limit pesticides and GMOs, and promote chemical free, sustainable 
agriculture that supports many small producers rather than fewer, 
larger producers, and locally produced ag products. But that won't 
happen because Congress has been bought by monied interests. Just do 
what is necessary to help bees survive--it will benefit us all.
                                 ______
                                 
                        Comment of Carla Behrens
    Date Submitted: Thursday, May 10, 2012, 11:14 a.m.
    City, State: Longmont, CO
    Occupation: Teacher
    Comment: I believe there should be more support for family farms, 
esp. organic farms. I believe that no American should go hungry; it is 
an atrocity that so many American children go hungry . . . we need to 
maintain programs such as SNAP.
                                 ______
                                 
                        Comment of Kate Behrens
    Date Submitted: Saturday, May 19, 2012, 12:17 p.m.
    City, State: Madison, WI
    Occupation: Healthcare
    Comment: I would like to see much more support for Organic 
agriculture.
    Less or no subsidies for growing corn for HFCS or ethanol, or 
anything else.

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thanks for all you do!

Kate Behrens.
                                 ______
                                 
                        Comment of Peggy Beirise
    Date Submitted: Saturday, May 19, 2012, 8:15 a.m.
    City, State: Dayton, OH
    Occupation: Insurance Agent
    Comment: The health of the citizens of this nation depends on the 
food produced by the country's farmers. The current Farm Policy 
subsidies allows for cheap unhealthy food to flow abundantly in our 
food supply. This in . . . turn makes it easier for our population to 
consume, which is one of many factors contributing to the obesity 
epidemic. I'd like to see a farm bill that makes healthier food flow 
abundantly to our citizens. So that an easier, more affordable, and 
wiser food choice is made readily available to everyone in our 
communities. The small, local farms need your help.
                                 ______
                                 
                      Comment of Michelle Belanger
    Date Submitted: Friday, May 18, 2012, 10:14 p.m.
    City, State: Winston Salem, NC
    Occupation: Self-Employed Carpenter/Musician
    Comment: I support the following for the upcoming farm bill:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I also believe that GM crops should be labeled, although I don't 
know if that is part of the scope of this bill. I have voted with my 
money for what kind of world I would like to live in for the last 30+ 
years. I vote for minimal use of chemical intervention, fair and humane 
treatment of farmers, farm workers and farm animals. Many agribusiness 
practices go against these values. The organic and local markets have 
seen some of the most consistent growth because large numbers of people 
agree with the common sense of these values and have been casting their 
votes as well. The farm bill should honor this. Specifically, I would 
like to mention, in the way of fair treatment for farmers, I ask that 
you be sure large distributers and processors who have monopolized 
markets for livestock are not allowed to take advantage of small 
farmers by, for example, requiring investments that take farmers 
several years to pay for, and then only giving contracts for one year. 
There are many other documented abuses and I hope you are aware of them 
and doing your diligence to make sure these issues are addressed. You 
can find out more from the organization RAFI USA. They have an 
excellent record of helping farmers who have been mistreated and 
helping legislators understand what needs to change. I also hope you 
will help this country move toward farming practices that use less 
fossil fuel, both in the form of fertilizers and other chemicals used 
on crops that are made with petroleum and natural gas, and less 
dependence on large machinery that uses a lot of fuel. I would like to 
see an end to subsidies that support such practices, as well as those 
that go to wealthy people who don't even work on their farms. We should 
go back to paying farmers for storing commodity crops to be sold when 
the price goes up, instead of just paying them to dump it on the market 
for a below market price. The current practice drives down world market 
prices and causes small farmers in poor countries to go out of 
business. That, in turn, increases the number of immigrants. We must do 
better.
                                 ______
                                 
                     Comment of Daniel Belgum-Blad
    Date Submitted: Saturday, May 19, 2012, 9:34 a.m.
    City, State: Atwater, MN
    Occupation: Lutheran Minister
    Comment: Members of Congress,

    As a concerned citizen who works as a pastor with farm families and 
non-farm families, in rural Minnesota, I know how important farm policy 
is I have some concerns I would like you to address.
    I support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286). This is a common sense approach 
to food supply issues.
    I also support the full funding of conservation programs, such as 
the Conservation Stewardship Program, and making sure that enrollment 
in any new insurance subsidies is tied directly to compliance with 
conservation programs.
    I also believe more people should have the opportunity to `break 
into' farming. So I support the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236).
    I believe we need to support sound farming practices, and organic 
farming should be encouraged. So I urge you to maintain the EQIP 
Organic Initiative. This is good for soil, water, food quality.
    I understand, from my reading, that Republicans in the House 
Agricultural Committee have already voted to slash $33 billion from the 
food stamp program while leaving farm subsidies unscathed. This is a 
travesty of justice! I strongly urge that this be blocked, and amended. 
The Food Stamp program saves tax payers billions ``down the road'' in 
increased health care costs for underprivileged people.
    In addition, it helps the most vulnerable: children.
    I ask you to consider the above measures, and ask that you support 
them.
            Sincerely,

Daniel Belgum-Blad
                                 ______
                                 
                         Comment of Judith Bell
    Date Submitted: Friday, May 18, 2012, 9:51 a.m.
    City, State: Oakland, CA
    Occupation: President, PolicyLink
    Comment: At this crucial time in the farm bill process, we urge you 
to include language authorizing the Healthy Food Financing Initiative 
(HFFI).
    HFFI will help address the nation's obesity epidemic by increasing 
access to healthy food, and will also create jobs and spark much-needed 
economic development across the country. For decades, low-income 
communities, particularly communities of color, have suffered from lack 
of access to healthy, fresh food. HFFI will provide one-time loan and 
grant financing to attract grocery stores and other fresh food retail 
to underserved urban, suburban, and rural areas, and renovate and 
expand existing stores so they can provide the healthy foods that 
communities want and need.
    HFFI will bring much needed jobs and investment to low-income 
communities by constructing and renovating grocery stores and markets 
in underserved areas. Many studies show that when healthy food is 
available in these communities, people make healthier choices about 
their diets, and studies also show a connection between healthy food 
access and lower rates of obesity and diet-related chronic disease. For 
instance, in April 2012, the American Journal of Preventive Medicine 
found that children living in neighborhoods with healthy food and safe 
play spaces are 56 percent less likely to be obese than children in 
neighborhoods without these features. HFFI holds great promise for 
helping combat childhood obesity by improving families' access to 
fresh, healthy food.
    A similar program in Pennsylvania has resulted in 88 projects being 
built or renovated in underserved urban and rural communities across 
the state, more than 5,000 jobs created or retained, and 400,000 people 
who now have increased access to healthy food. Thirty million invested 
state dollars has resulted in projects totaling more than $190 million.
    Additionally, in 2011, using the Pennsylvania program as a model, 
the Obama Administration launched the inter-agency Healthy Food 
Financing Initiative with the goal of increasing fresh food access in 
underserved rural, urban, and suburban communities across the country. 
Since its launch, Congress has allocated $77 million for HFFI and 
projects improving access to healthy food at the Departments of Health 
and Human Services, Treasury, and at the U.S. Department of 
Agriculture. Partners, including PolicyLink, The Reinvestment Fund, The 
Food Trust, The National Grocers Association, and numerous agriculture, 
health, civil rights and industry groups support HFFI.
    We are thrilled at the tremendous momentum around the country right 
now to bring grocery stores to places that need them, but this national 
effort is still in a very nascent stage. In order to realize the 
incredible success that Pennsylvania achieved over 5 years, we will 
need a large and sustained effort over several years. The good news is 
that we know what to do and can do it successfully. The Pennsylvania's 
program's success rate has been better than the grocery industry 
overall. This one time infusion of grant and loan funds create ongoing, 
sustainable business that continue to provide a vital economic lifeline 
for their communities. This is critical for rural communities where 
grocery stores are both economic and social anchors.
    Representatives Schwartz (D-PA), Burgess (R-TX), and Blumenauer (D-
OR) have introduced legislation (H.R. 3525) to establish a national 
Healthy Food Financing program through the creation of a national fund 
manager housed within USDA. This structure would mirror closely the 
original public private partnership of the PA FFFI and allow the 
leverage of millions in private capital at the national level. Given 
the flexibility and range of projects that HFFI can support from 
supermarkets to farmers' markets and from Co-ops to CSAs, the farm bill 
is the appropriate vehicle to fully invest in a national effort to 
bring healthy food access to every city and small town that needs it.
    The Senate Agriculture Committee's bipartisan Agriculture Reform, 
Food and Jobs Act of 2012 recently included language authorizing HFFI. 
In recognition of the multiple benefits that this initiative brings to 
underserved urban, suburban, and rural communities across the nation, 
we ask that the House Agriculture Committee also includes language 
around this tested and highly successful HFFI model as you move through 
the farm bill process.
            Thank you.

Judith Bell, PolicyLink

John Weidman, The Food Trust

Patricia Smith, The Reinvestment Fund
                                 ______
                                 
                       Comment of Cynthia Bellini
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Eagle, CO
    Occupation: Author--Health Books
    Comment: The local farmers in their area need to be able to produce 
healthy food without introducing GMO's, pesticides, toxic sprays. This 
is destroying the soil and people's health. Enough is enough.
                                 ______
                                 
                      Comment of Stephanie Belseth
    Date Submitted: Friday, May 18, 2012, 1:14 p.m.
    City, State: Minneapolis, MN
    Occupation: Pediatric Nurse Practitioner
    Comment: I support local, organic farming which uses health-
focused, environment-focused, sustainable practices, grass/natural-fed 
animals, a focus on vegetables and fruit over grains like GMO corn and 
soy that increase our waistlines and all of the related chronic illness 
that go along with that, rather than profit-focused, chemical, 
antibiotic and hormone laden money-first-based practices that pollute 
our water, land and air and make America sick. I see daily in practice, 
children with nutritional deficiencies, chemical and pesticide 
exposures that affect their behavior, schoolwork, relationships, and 
health. Some are overweight, some eat only processed foods, others have 
precocious puberty, others diabetes, high blood pressure, depression, 
anxiety, ADHD and autism.
                                 ______
                                 
                       Comment of Barrett Belveal
    Date Submitted: Friday, March 16, 2012, 10:53 a.m.
    City, State: Westport, WA
    Occupation: Retired Pensioner
    Comment: I support my local food bank, and I know they are 
struggling right now to meet the needs of my community. I ask that you 
pass a strong farm bill that protects and strengthens programs like 
TEFAP, SNAP, and CSFP. These programs are a lifeline to the millions of 
Americans struggling with hunger, and I urge you make them a priority 
in the next farm bill.
    In the mad rush to cut domestic spending Congress is operating on a 
strictly penny-wise, pound-foolish, basis for the sake of a debt that 
is not otherwise insurmountable. Stay out of Iran, close the off-shore 
bases and moor the Navy in U.S. Ports before taking one more dime from 
the domestic budget.
                                 ______
                                 
                        Comment of Anne Bembenek
    Date Submitted: Sunday, May 20, 2012, 11:50 p.m.
    City, State: Almond, WI
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 50-150 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I wanted to let you 
know what my husband and I face, as small farm owners. We raise our few 
grass fed steers organically, but cannot afford the time and education 
to go thru the certification to be legally recognized as organic. As a 
'new' farmer and considered under the class of disadvantaged because 
I'm a woman (new farmers mean less than 10 years) I was extremely 
interested in getting the FSA loans to lower our payments and allow us 
to make desperately needed repairs and upgrades. We live in fear of our 
one tractor dying and we cannot afford the $30,000 to buy a newer basic 
model with the horsepower we need. The local FSA offices have closed, 
so I had to drive 1 hour and 15 minutes each way, several times to meet 
with an agent. After trying to fill out the paperwork and jumping thru 
the hoops, we were notified that there was no money to lend, even if I 
were to qualify. The program is underfunded. Farming is the only career 
that you have no control over. We live at the mercy of mother nature, 
adjustable rate loans, being unable to qualify for standard residential 
fixed rate loans because banks won't touch farm loans. We work off the 
farm jobs to pay the bills and get health insurance. There is no 
pension plans or 401(k)'s for small farmers. No disability insurance in 
one of the most dangerous jobs in the country. We work 100 hour weeks 
and don't draw a paycheck because we can barely keep the lights on. 
With the increase in the cost of fuel, we have been reduced to buying 
our fuel $100 at a time. On paper, we are middle class. We are land 
rich and cash poor. Farm land has held it's value during this terrible 
down turn in the economy, but it doesn't matter if it's worth $1, or 
$1,000 an acre if we can't pay the mortgage. The programs that were put 
in place to protect the small farmer have turned into mini lottery 
winnings for large land owners and multinational companies. In 2000, we 
received just over $900 in a corn subsidy payment. It's the only 
government money we've ever received or qualified for. We import 
poisonous food from other countries, while our own farmers find 
themselves so burdened by debt, and a broken system, that too many 
families have lost everything. When a farm family goes bankrupt, they 
don't just lose their house. They also lose their jobs and everything 
they have ever worked for. Unemployed and homeless. With other careers, 
there is a chance to find another job. A chance to buy another house 
down the road.
    With the amount of money it takes to even buy a tiny place like 
ours, get decent used equipment, plant crops, and buy fertilizer, it's 
100's of thousands of dollars just to get started. Who can afford that? 
Then, with that amount of debt sucking the accounts dry, there is 
nothing left to put away for bad weather years, or retirement, or even 
replacement equipment. Importing food is an unrecognized fuel to the 
recession crisis fire. A farmer needs land to plant crops in. That 
raises tax revenue, helps fuel housing recovery and creates jobs. We 
buy tractors. Those tractors come from parts that need to be 
manufactured. Parts from many different companies that keep people 
employed. We need seed to plant. That keeps the seed mill running. We 
need fertilizer. That keeps the fertilizer plant going. We are always 
needing repairs. Again employed people to make parts, mechanics to fix 
them. Truckers taking those parts from factory to shop. We buy those 
big trucks everyone hates because we need to pull equipment with them, 
and fill them with things too heavy and large to fit into cars. We hire 
people to help plow, plant, and harvest. We advertise trying to 
convince our neighbors that the food grown locally is healthy, and 
safe. That they aren't really saving 2 cents on that can of peas at 
Wal-Mart. Because that 2 cents is what creates all the jobs the grows 
the food, and that money stays here, in our country, in our 
neighborhoods. We support our schools and try to convince young people 
that farming isn't a job that ruins your body, and is like having a 
child that never grows up. It always has be watched and tended to. 
There's no days off, no sick time. Animals don't care it's a holiday. 
They need fed and watered. Our tractors don't know that fuel is $4 a 
gallon. They just know if the tank is dry, they are not going to turn 
over. Every penny that is spent importing food from other countries, 
buries this country further in debt. Being able to feed ourselves is a 
national security issue. We depend on other countries to feed us. To 
supply our fuel. To make the parts we need to keep things running. What 
happens when the day comes that one of those over populated countries 
with more than a billion people decide that they are going to call in 
their loans. That they can own us, instead of just loaning us money to 
keep us going. That they need our food more than we do. What happens 
when there is fuel, but no food? We need programs that help current 
farmers stay on their farms. Programs that are actually funded, and 
based on the real world needs of toda's farmers. We need to educate our 
citizens about what our country does actually produce, and what is in 
season. We can live without strawberries in December. We need to become 
more realistic about the capital needed to buy a new place, or keep an 
old place running. We need to realize that farming isn't like other 
jobs, and that the ebb of flow of weather patterns balance out. That 
the banks can't expect every year to be better than the last.
    We need banks to offer fixed rate loans to farmers at competitive 
rates. When 30 year fixed rate loans went below 4%, our adjustable rate 
mortgage was at 8.25%. We had good credit and plenty of equity but 
there is little competition because there are so few farm lending 
institutions. We need to cut down on the amount of paperwork required 
to qualify for the programs that already exist. A credit card company 
will give an unsecured credit line to an 18 year old, but hesitates to 
give a loan to a farmer with good credit because farming isn't 
considered a reliable profession. If we want our young people to be 
farmers, we must make it possible for them to have a hope of owning 
their own land. We need to have an apprenticeship program. Where kids 
can spend their summers learning how farming actually works. Once it's 
in your blood, once you see the field of dirt from the spring, suddenly 
green up, grow and mature into a crop that needs harvested, the sense 
of accomplishment, and the wonder of mother nature is hard to let go 
of. We live in a mobile society. Owning a farm puts roots down to the 
center of the Earth. We are part of the land, and the land is part of 
us. The only way we go mobile is in illness and bankruptcy. We need 
help. There will never be future farmers, if today's small farmer can't 
hold on. We will risk our lives to save a frozen calf, bring it into 
our basement to warm it up, because that one calf, is a years work lost 
if it dies. There's no replacing the money lost. It's dead and 
worthless. And the bank looks at our books and decides what we do is 
too risky to grant loans to. We can drive less to save fuel, but we 
still need to eat everyday. We can have Doctors finding cures to 
terrible diseases, but those Doctors can't do anything without fuel for 
their bodies. We can give up vacations to save money, but we still have 
to eat. No matter what you do, or who you are. Rich or poor. Successful 
or homeless, we must eat. The head of the most powerful nation on Earth 
can command horrible destruction upon other countries, but in 3 days, 
with no food, he won't be able to keep his thoughts straight. We need 
food, like we need air to breath, and yet farming is a dying 
profession.
    It's time to make changes that make farming as important as the 
Doctor who treats our bodies. It's more important than even those that 
will vote on whether changes are made, and those changes are practical 
and based on real world knowledge and not what big companies tell you 
farming is. Farming is not 3,000 dairy cows confined to tiny stalls 
with 3 shifts of low paid workers hooking up machines. That kind of 
farming is how tainted food gets into the system. Those low paid 
workers have no vested interest in keeping those cows healthy and 
happy. You let those workers own a piece of those cows, and you'll see 
them bend over backwards to make sure their animal has the right feed, 
is comfortable, and is healthy. You'll see them not want to keep that 
cow in that huge barn, because that's not what's best for the cow. We 
need to offer people the chance to own and control their most basic 
need. Food. Please talk to small farmers. Take this chance to actually 
pass a bill that is smart and is composed from common sense. Get out of 
the office, go to the local technical college in an agricultural 
community, and talk to the students. Ask what drives them to farming, 
and away from farming. Come to my house and see the amount of money it 
takes to keep our tiny 80 acres going. Talk to our local University 
extension office and ask them the hurdles that local farmers face. Time 
magazine ran an article about the way to get rich in this poor economy 
is to farm. The only people getting rich right now, are people that 
actually were rich, and now are richer because of all the bankruptcy 
and picking up land at bank sales. Even here, in central Wisconsin. Our 
tiny run down farm is worth $320,000 with just land value. That's 
without a building on it. If a person wanted to buy it, they'd need 
great credit and 20% down. That's $64,000 before a single foot of 
cement is poured for a house, or a piece of equipment is bought. No 
septic system installed for at least $6,000. A well for running water 
another $10,000 or more. They need a place to live.
    A small new house is pretty inexpensive here compared to other 
parts of the country. You can get by for $100,000. Our house was build 
from 1902-1906. From a plans bought thru the Sears catalog. It's not 
old and quaint, it's old and we've spent almost as much as if we'd 
bought a new house to remodel and update. There's $60,000 for a shed to 
keep equipment in, once they can buy it. For descent used equipment a 
farmer starting from scratch has already spent $320,000 on land, 
$16,000 so they can have water to wash and a place to flush a toilet 
when the house goes up. $100,000 for a small house. $60,000 for a shed. 
$30,000+ (Big tractors go for 100's of thousands of dollars, plus 
combines and 24 row seeders). $12,000 for a disc to break up the soil. 
We grown a few steer and hay so we'll I'll use our equipment. $6,000 
for a seed drill and roller. $7,500 for a haybine (to cut the hay), 
$12,000 for a descent round baler, or about $8000 for a 30 year old 40# 
kicker square baler (like we use), $10,000 for 4 bale racks (we need at 
least 2 more and these are what the bale of hay shoot into after they 
come out the back of the baler), $30,000+ for a barn to put the hay in, 
$2,000 for an elevator to get hay to the upper parts of the barn. We 
rent fertilizer spreaders and are in the market for a manure spreader 
for cheap. The new farmers tab is at over $600,000 and they haven't 
spent a dime for fuel, seed, or fertilizer. They haven't purchased a 
vehicle, or anything for the house. No electricity, heating or cooling 
the house. No insurance, property taxes, liability insurance (another 
things with little competition because most carriers won't touch it). 
Workers compensation if they need to hire help. No employment taxes. 
Self employment taxes. Disability insurance for when they get hurt, and 
I'm pretty sure the injury rate is 100% over a lifetime. No retirement 
plan. No medical payments, dentists, clothing, and every other things 
needed in everyday life. A new farmer, in our area, if they are lucky 
will only need to get loans for roughly $750,000. That's if they don't 
plan on having a dairy operation which is much more expensive to start 
and maintain. All that, and no vacations, days off, sleeping late, paid 
holidays, health insurance, retirement plans, working 60-100 weeks and 
still not making enough to pay the mortgage, all the while having 
people, after they find out you own a farm, yell at you because the 
cost of food so high. Which is a joke because we get $.90 a pound for 
beef if we're really lucky. Buy it at the store and a steak is over 
$12. Our grocery bill, without meat because we raise our own, is about 
$400 per month. Farmers who can't afford to eat. That's how broken the 
system is, and it will only get worse if more worthless farm bills are 
passed. Don't talk to the people who supply Wal-Mart, talk to our 
neighbor Harlan, or Roy. Harlan can't retire even though his son has 
worked the farm with him his whole life, and Roy lost his farm to the 
bank. Again, our food supply is a national security issue. Please give 
it the time, research and effort that goes into keeping our borders 
safe, and supplying our solders, because time is running out.
    If you want to keep eating safe food, domestically grown, there 
needs to be a shift in perception of farming and how important it is to 
our entire nation. Tomorrow, don't eat. Voluntarily fast for a day and 
see how important food becomes by the end of the day. You don't see 
your Doctor everyday, but you do hope to see food on your plate 
everyday. Shouldn't the people supplying that all important commodity 
be held in the same respect as healers, or lawyers, or lawmakers? We 
need help, we need it now, and this isn't being dramatic. The numbers 
don't lie. Nobody wants to work 365 days a year to help others, and 
have our government ignore or minimize how important the job we do is. 
We need new people to replace those that bankrupt or can't work 
anymore. We don't need handouts, we need sound financial programs that 
let us do our job, and make that job appealing to the next generation. 
The form letter follows my personal letter. Thank you for your time, 
and I truly pray that you will pass a farm bill that helps American's 
feed America. Sincerely, Anne Bembenek Almond, Wisconsin
    I am a young farmer and I'd like to share my support for programs 
that help the next generation of growers build strong farm businesses. 
As it's estimated that 125,000 farmers will retire in the next 5 years, 
it's absolutely critical that farm bill programs help citizens get 
started in this challenging field. I ask that the Committee endorse all 
of the provisions of the Beginning Farmer and Rancher Opportunity Act 
(H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Anne Bembenek.
                                 ______
                                 
                       Comment of Roni Ben-David
    Date Submitted: Friday, May 18, 2012, 1:23 p.m.
    City, State: San Francisco, CA
    Occupation: Educator
    Comment: Please do your part to make reforms to the farm bill 
including:

  <bullet> More funding towards a healthy school lunch program.

  <bullet> Less subsidies for commodity crops and big agribusinesses

  <bullet> More subsidies for small organic family farms

  <bullet> Keep the SNAP program providing low-income individuals with 
        support in shopping at farmer's markets

  <bullet> Amend our international Food Aid program so that we can 
        source food aid from the recipient country (not just food 
        produced in the USA).
                                 ______
                                 
                        Comment of Emily Bender
    Date Submitted: Friday, May 18, 2012, 11:38 a.m.
    City, State: Fairfax, CA
    Occupation: Nutritionist
    Comment: How we produce our food and what we support as a nation 
impacts the health of the Earth as well as public health. Please 
support a farm bill that takes away subsidies from agribusiness who 
produce commodity products for processed foods, and instead support 
farmers producing organic fruits, vegetables, dairy and meats in a 
sustainable way.
                                 ______
                                 
                        Comment of Nancy Bender
    Date Submitted: Sunday, May 20, 2012, 10:05 a.m.
    City, State: Chicago, IL
    Occupation: Gallery Manager
    Comment: Support the small farmer and stop giving away the 
subsidies to the corporate farmer. The small farmer takes better care 
of their animals and the land.
                                 ______
                                 
                        Comment of Oebm Bendrah
    Date Submitted: Saturday, May 19, 2012, 12:46 p.m.
    City, State: Hawthorne, FL
    Occupation: Retired
    Comment: I am just a home gardener. My thoughts are that America's 
people, land, and food supply are greatly benefitted by smaller farms 
and reformed methods of crop growing. Please support farm policies that 
favor these. When it comes to healthier people, land and food that is 
way we need to go.
                                 ______
                                 
                       Comment of Crista Benedict
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Chico, CA
    Occupation: Paralegal and Student
    Comment: As Representatives of the citizens of this country, it is 
imperative that you stand up for their rights to have a healthy diet. 
You should no cater to industrial farming. Studies have shown time and 
time again that medium sized, organic farms produce more food, are 
healthier for the environment (i.e., no pesticide run-off, no 
development of superbugs, no risk of contamination to other foods) and 
actually have nutrients.
    This is an extremely critical issue. The rural communities are 
dying and part of that is because of the provisions of the farm bill--
Congress has cut funding to rural development and small farms while 
catering to big business and industrial farming. It has to stop. It has 
to stop for our health and for the future of food.
    It will be your fault when we have a food collapse because of the 
funding that is cut to vital programs. This is in your hands. Do the 
right thing.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Keep in mind that large industrial farms and the companies that own 
them (Montsano, Dupont, etc.) do Not Need The Subsidies. Subsidies 
should be reserved for those farmers that actually need them. Farmers 
that struggle to make ends meet. Farmers that don't make a profit. 
Farmers that want to grow more than one crop.
    You are ruining our ecosystems with the monoculture you fund 
through the farm bill. Stop.
                                 ______
                                 
                          Comment of Al Benner
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: Honesdale, PA
    Producer/Non-producer: Producer
    Type: Other
    Size: 50-150 acres
    Comment: We are a small bio-diverse organic farm in your district, 
and we believe our country needs more incentives for small scale farms 
that are farming in ways to protect the environment and our health to 
have more protection and incentives to compete with large scale farms. 
GMO crops are a huge concern as is our reliance on synthetic chemicals/
fertilizers on monoculture type agricultural systems with just a 
handful of species makes us all vulnerable. We also Must get Federal 
subsidies out of Washington for large corporations and reduce 
regulations for small scale farmers so we can compete on a level 
playing field.
    Thanks,

Al Benner.

    P.S.: I had to check ``other'' because we are raising a little bit 
of everything--a good way to go because it balances the ecosystem and 
requires little to no external inputs--learn more at: 
www.oldschoolfarmers.blogspot.com.
                                 ______
                                 
                       Comment of Allisa Bennett
    Date Submitted: Friday, May 18, 2012, 10:12 p.m.
    City, State: Denver, CO
    Occupation: Permaculture Design Consultant
    Comment: Thank you for putting the well-being of your constituents 
before the profits of corporate agribusinesses. Our country's ability 
to thrive in these changing times and the health of our children and 
grandchildren may depend on your decisions in this realm. Your best 
efforts are needed in support of growers who build rather than erode 
soil quality, who harvest rather than waste water, who grow food 
primarily for themselves and their own region, for those who promote 
biodiversity rather than monocropping and for those who are starting or 
maintaining small and medium-sized organic and biodynamic farms. Thank 
you for using all the resources at your disposal to affirm that this is 
our Father's world and that Nature's Divine Design does not need 
fixing. Thank you for relying on the tried and true economies of 
natural systems, culture, and agriculture rather than the false 
economies of gene-tech and toxic chemical intervention in food 
production. Do your research and listen to your soul rather than to the 
loudest lobbyists. Again, thank you for your public service.
                                 ______
                                 
                       Comment of Matthew Bennett
    Date Submitted: Friday, May 18, 2012, 12:04 p.m.
    City, State: Westville, NJ
    Producer/Non-producer: Producer
    Type: Forestry, Fruits, Specialty Crops, Other
    Size: Less than 50 acres
    Comment: We need to outgrow outmoded, degenerative methods of 
feeding ourselves, and because we are blessed to live in a Democracy, 
we can choose to do so.
    Please support a farm bill that supports small, innovative, 
organic, ecological, and permaculture farms. Cultivating higher quality 
foods for all that also improves soil fertility is essential to 
sustaining the progress of our Nation.
                                 ______
                                 
                       Comment of Stacey Bennett
    Date Submitted: Friday, May 18, 2012, 11:46 a.m.
    City, State: Blandon, PA
    Occupation: Instructional Technologist
    Comment: Please let's have some real reform in the farm bill to 
create a better future for all of us! Organics should be supported and 
embraced because all other ways of producing food are leading to the 
demise of our population. Organic Can feed the world and it needs to be 
given a chance. This starts in the farm bill!
                                 ______
                                 
                      Comment of Virginia Bennett
    Date Submitted: Friday, May 18, 2012, 2:12 p.m.
    City, State: Honolulu, HI
    Occupation: University Professor
    Comment: It is time this country went back to putting its ordinary 
citizens in first place. Now Congress seems totally in control of the 
Big Agribusiness companies, which supply us with less the healthful 
foods--more likely with health-endangering food products. It's now up 
to legislators to show us that they work for us, not ``Big Ag.'' and 
pass an organic farm bill!
                                 ______
                                 
                        Comment of Peyton Benoit
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: Prescott, AZ
    Occupation: Student
    Comment: More money needs to be put into organic agriculture. 
Pesticides are bad for out health and the environment. We should be 
putting money into health and the environment.
                                 ______
                                 
                         Comment of Erle Benson
    Date Submitted: Friday, May 18, 2012, 1:46 p.m.
    City, State: Boulder, CO
    Occupation: Teacher
    Comment: Two issues I believe are important to consider carefully. 
The first, the area of environmental support for Organic farming. The 
second directly relates to the first . . . how to control the use of 
GMO seeds and farming. No
                                 ______
                                 
                       Comment of Gaynell Benson
    Date Submitted: Thursday, March 22, 2012, 3:29 p.m.
    City, State: Waco, TX
    Occupation: Administration
    Comment: As a former recipient of the SNAP (Food Stamp Program), I 
can truly attest to the fact that the program was a Blessing to me and 
my three children (now adults). I worked hard to provide for my family 
and to make ends meet; no matter how long the hours, the pay was still 
not enough, but we made it. This program gave us a hand-up so that we 
would not go hungry. Now the USDA has been involved in providing free 
breakfast to all school age children who may or may not have eaten the 
night before. This free breakfast also assists in the productivity and 
the ability to function in school. So, therefore H. RES. 564 is a 
wonderful bill to support; not only will it continue to ensure that 
good nutrition and health awareness is promoted, but it will also 
ensure that our children will be able to focus/enhance their learning 
in the classroom to become productive citizens. As a mother/grandmother 
I would like to urge you to support this bill so that SNAP and other 
nutritional programs will continue to be a Blessing to the less 
fortunate.
            Sincerely submitted,

G. Benson.
                                 ______
                                 
                     Comment of Josh Benson-Merron
    Date Submitted: Friday, May 18, 2012, 2:57 p.m.
    City, State: Santa Cruz, CA
    Comment: We need to protect the future of our food system in 
America. Right now our food system is broken and if we continue the way 
we are going we could face another dust bowl--industrial agriculture is 
overexploiting the land and is not sustainable. People should know 
where there food came from and how it was grown because it is vital not 
only for their health but for the health of the land. We need to stop 
experimenting with nature and return to a farming system that we know 
is healthy and sustainable.
                                 ______
                                 
                        Comment of Charles Bent
    Date Submitted: Friday, May 18, 2012, 9:43 p.m.
    City, State: Wilton, NH
    Occupation: Interior Decorator
    Comment: We need to get pesticides out of our food. Please give us 
the chance to live healthy lives. Agribusiness is motivated by greed, 
not healthy nutrition.
                                 ______
                                 
                        Comments of Mary Bentley
    Date Submitted: Wednesday, May 09, 2012, 11:22 p.m.
    City, State: Mason City, IA
    Occupation: Disabled
    Comment: Please keep in mind that there are a lot of people 
suffering with prices in the markets--the cost of food to eat healthy; 
especially those with limited incomes & those with health issues. Thank 
you.
    Date Submitted: Saturday, April 28, 2012, 12:09 a.m.
    Comment: There are so many people that are struggling so much just 
to keep food on the table, some are elderly, some with children, & the 
disabled. It would be very sad to think that these food programs could 
be cut when the need is so great, especially with people having no jobs 
or able only to find part-time work. Thank you for your considerations.
                                 ______
                                 
                      Comment of Dimitar Berbatov
    Date Submitted: Wednesday, May 02, 2012, 4:52 p.m.
    City, State: Providence, RI
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: As a concerned taxpayer and resident of Rhode Island, I am 
writing this letter to voice concerns about the provisions being 
proposed in the 2012 Farm Bill. Understanding that significant budget 
cuts and reforms need to be made in this year's bill, I would like to 
underscore my concern for revisions to conservation compliance 
programs. Because federally subsidized crop insurance is currently not 
subject to conservation compliance, I would like to express support for 
measures ensuring long-term sustainability in order to ensure the 
continued productivity of our nation's cropland.
                                 ______
                                 
                         Comment of Linda Berd
    Date Submitted: Friday, May 18, 2012, 8:18 p.m.
    City, State: Magdalena, NM
    Occupation: Thoroughbred Horse Industry
    Comment: I am continually, terribly disturbed at the direction of 
our food production ``industry''--toward factory farming (inhumane & 
ecologically destructive) and subsidizing already profitable large 
agribusinesses--to the detriment and exclusion of the small farmer & 
the healthiest food one could find . . . local; organically grown; 
family farmed. And now there are those hideously selfish individuals in 
Congress who are perfectly willing to kowtow to the multi $$$$ from 
agribusiness and throw the rest of those trying to bring good food to 
the table, and indeed even cut food stamps and send the poor From the 
table--those who will not heed the majority who want Healthy Food and 
Do Not Want To Subsidize Big Business. You'd better listen . . . . For 
several years I have not bought factory farmed meat/poultry and never 
will until those animals we slaughter are treated Humanely. And I get 
my produce from locals--including eggs. If you only care about being 
re-elected that's your problem. My problem is getting food that won't 
kill me. And for some, getting any food at all , thanks to Food Stamps. 
Shame . . .
                                 ______
                                 
                      Comment of Patricia Bereczki
    Date Submitted: Friday, May 04, 2012, 1:31 a.m.
    City, State: Vancouver, WA
    Occupation: Retired
    Comment: I am very disappointed that the Agribusinesses are so 
against the independent family farmers by pushing Monsanto contaminated 
products. Then going after farmers by taking them to court because the 
genetically engineered seeds blew over onto their property. Family 
farmers are the backbone of our country and must be treated more 
fairly. I don't want to eat genetically engineered food and I don't 
want my family, or anybody else's, to have to either. We have choices 
and we should be allowed to choose which foods we will eat. That is why 
my family eats as much local and organic foods as we can. And, we are 
much healthier for it. Thank you.
                                 ______
                                 
                      Comment of Alex Beresniewicz
    Date Submitted: Friday, May 18, 2012, 1:01 p.m.
    City, State: Seattle, WA
    Occupation: Publisher
    Comment: Jim,

    It's time to end subsidy's to large farms that don't need it and 
CAFO's that don't deserve it. Aim the subsidy's at nutrition programs, 
small producers, and organic farming. Please!
                                 ______
                                 
                        Comment of Abigail Berg
    Date Submitted: Friday, May 18, 2012, 11:14 p.m.
    City, State: Sequim, WA
    Occupation: Auditor
    Comment: We depend on the government to TRY and be fair and giving 
large farm subsidies and Not supporting organic agriculture OR food 
stamps (which need some reform), is atrocious.
                                 ______
                                 
                         Comment of Pamela Berg
    Date Submitted: Thursday, May 17, 2012, 1:15 p.m.
    City, State: Philadelphia, PA
    Occupation: Public Health Researcher
    Comment: We need a farm bill that does more than provide handouts 
to large wealth agribusiness to grow corn and soy for animal feed on 
one hand and provide free food to the poorest people on the other. We 
need a common sense farm bill that supports a healthy food system for 
everyone--a farm bill that matches what the USDA and all nutrition 
experts tell us we should eat. The MyPlate does not have GMO corn or 
soybeans on it, so why should our tax dollars support overproduction of 
these commodities!?
                                 ______
                                 
                         Comment of Paula Berg
    Date Submitted: Thursday, May 10, 2012, 5:54 p.m.
    City, State: Oak Park, IL
    Occupation: Manager/Oak Park River Forest Food Pantry
    Comment: I am humbled and saddened at the amount of people in our 
community who are truly food insecure and need assistance.
    These are our neighbors, our friends and fellow human beings, 
having to worry how to feed themselves and their families.
    Please Do Not allow cuts to SNAP. Our neighbors deserve our support 
and respect.
                                 ______
                                 
                         Comment of Peter Berg
    Date Submitted: Saturday, May 19, 2012, 4:48 a.m.
    City, State: Kamuela, HI
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery
    Size: Less than 50 acres
    Comment: It's past time to understand and act upon the fact that 
factory agricultural & current chemical fertilizer & pesticide 
practices are major contributors to the health problems experienced by 
a growing number of Americans. These problems will be compounded as 
time goes on--and if you don't understand this, you haven't done your 
homework. Don't let the big agriculture producers be the only source of 
information on this critically important issue.
            Thank you,

Peter Berg.
                                 ______
                                 
                          Comment of By Berger
    Date Submitted: Sunday, May 20, 2012, 12:05 p.m.
    City, State: Sierra Madre, CA
    Occupation: Kindergarten Teacher
    Comment: Mr. Drier

    I am a member of Slow Foods. I am in favor of a farm bill that 
encourages small acreage, organically oriented farmers and against GMO 
and pesticide contaminated food.
                                 ______
                                 
                      Comment of Christine Berger
    Date Submitted: Friday, May 18, 2012, 2:01 p.m.
    City, State: Oakland, CA
    Occupation: Accounts Payable Coordinator
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I am really hoping to see some changes in the disaster that is our 
current management of agriculture. With corporate agribusiness giving 
in to poisoning the population and non-identification of GMO crops (as 
opposed to what most other countries of the free world do) to the 
trampling of small farmers who do not use pesticide or who are organic 
it is at the point where I am afraid to eat anything produced here 
other than what I can get at the farmer's market or grow in my own back 
yard. Please realize that we are in trouble with our food supply and 
that we the people need you to step up and make the necessary changes. 
Please.
                                 ______
                                 
                        Comment of Janna Berger
    Date Submitted: Monday, May 14, 2012, 10:02 p.m.
    City, State: Falls Village, CT
    Comment: Please support programs that use government dollars to 
increase the viability of an enduring and secure food system such as 
SARE grants (of which our farm is a recipient to research no-till 
organic vegetable systems), Beginning Farmer Rancher grants, Value 
Added Producer Grants, the Conservation Stewardship Program, and the 
Organic Agriculture Research and Extension Initiative.
                                 ______
                                 
                       Comment of Janice Bergeron
    Date Submitted: Friday, May 18, 2012, 4:02 p.m.
    City, State: North Branford, CT
    Occupation: Unemployed
    Comment: I am lucky to live in a farm town, family farms that is. I 
support them and buy organic whenever I can. It tastes better and lasts 
longer on the shelf . . . organic bananas last nearly 10 days! And 
Monsanto suing small farmers because of accidental cross pollination? 
Why don't organic farmers sue Them for polluting Their crops?
                                 ______
                                 
                        Comment of Audra Bergman
    Date Submitted: Friday, May 18, 2012, 11:02 a.m.
    City, State: Great Falls, MT
    Producer/Non-producer: Producer
    Type: Livestock, Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: Going into our third growing season as beginning 
farmers(My husband and I), I feel that it is imperative to continue to 
support and fund programs for beginning farmers and ranchers. Specific 
challenges one faces in starting up are: access to land and access to 
capital/equipment. The Beginning Farmer and Rancher Loan programs 
through FSA are especially important; our country needs to invest in 
small/family agricultural producers throughout the nation, not big 
agribusiness and centralized production. Thank you.
                                 ______
                                 
                       Comment of Deborah Bergman
    Date Submitted: Sunday, May 20, 2012, 5:32 p.m.
    City, State: Sarasota, FL
    Occupation: Retired
    Comment: Local farms are good for the economy, the pocketbook of 
the consumer and the perpetuation of family farms. Please support these 
farms.
                                 ______
                                 
                       Comment of Henry Berkowitz
    Date Submitted: Sunday, May 20, 2012, 9:17 p.m.
    City, State: Sabinsville, PA
    Occupation: Counselor
    Comment: If you are interested in doing the right thing, you will 
pass a farm bill that encourages conservation, and organic farming, and 
providing help for the small farmer. We don't need you to give more to 
the mega corporations, they already get too much from this government. 
I'm hoping you will vote to help the people who actually need the help.
                                 ______
                                 
                      Comment of Janice Berlepsch
    Date Submitted: Saturday, May 19, 2012, 9:12 p.m.
    City, State: St. Augustine, FL
    Occupation: Retired
    Comment: We want healthy safe food . . . vote for an organic food 
bill and stop subsidizing millionaire corporate farms.
                                 ______
                                 
                        Comment of Marcia Berman
    Date Submitted: Sunday, May 20, 2012, 8:39 a.m.
    City, State: Berkeley, CA
    Occupation: Retired Psychotherapist
    Comment: Pay attention to the small family farms trying to give us 
fresh, healthy produce and be sure to heavily supervise and regulate 
big Ag from beginning to end.
    End genetically modified food production completely. Not healthy. 
Grown with pesticide inside. Ugh!
    Do the right thing. Fulfill your responsibility to keep America's 
food supply safe and ever-present. No big Ag. Too hard to regulate and 
supervise. Not good. Thank you.
                                 ______
                                 
                        Comment of Susan Berman
    Date Submitted: Friday, May 18, 2012, 1:23 p.m.
    City, State: Longmont, CO
    Occupation: Educator
    Comment: Please support all legislation that protects our food 
sources as organic as possible. And protects farmers who need support 
to supply organic products.
                                 ______
                                 
                     Comment of Hannah K. Bernhardt
    Date Submitted: Sunday, May 20, 2012, 10:54 p.m.
    City, State: Brooklyn, NY
    Occupation: Organizer
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am an aspiring 
farmer, beginning farmer advocate, and volunteer for The Greenhorns and 
the National Young Farmers' Coalition, and I'd like to share my support 
for programs that help the next generation of growers build strong farm 
businesses. I grew up on a family farm in southern Minnesota, and even 
with those roots, I never considered a career in farming until recently 
because of the many obstacles I knew I would face. As it's estimated 
that 125,000 farmers like my father and my friends' fathers will retire 
in the next 5 years, it's absolutely critical that farm bill programs 
help young people get started in this challenging field. I ask that the 
Committee endorse all of the provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. I have worked on a 
        BFRDP grant with the Greenhorns nonprofit and the Cornell Small 
        Farms Program and saw first hand how these programs are 
        essential to new farmer education.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability and affordability of protected land part of 
        the purpose of the program. Give discretionary authority to the 
        eligible entities that implement the program to prioritize 
        easements with an option to purchase at the agricultural-use 
        value and deals that transfer the land to beginning farmers and 
        ranchers or applicants with farm succession plans.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Hannah K. Bernhardt,
Marketing Director,
[Redacted],
Brooklyn, NY.
                                 ______
                                 
                        Comment of Janet Bernson
    Date Submitted: Friday, May 18, 2012, 3:42 p.m.
    City, State: Sherman Oaks, CA
    Occupation: Expressive Arts Therapist
    Comment: Organic food is our best answer to good health for all 
citizens . . . all of which translates into a healthy community/
country. Both short and long term effects of chemically maintained and 
genetically enhanced foods may be good for corporate interests but not 
for the humans who work for said industry or the people who buy their 
products and ultimately not for communities. Anything less than organic 
and biodynamic is economically foolish and a human travesty.
                                 ______
                                 
                       Comment of Simon Bernstein
    Date Submitted: Wednesday, May 02, 2012, 9:51 p.m.
    City, State: Galena, IL
    Occupation: Illinois Licensed Doctor of Naprapathic Medicine
    Comment: Small family farms using sustainable farming methods are 
our best hope for the future. Not industrial farming methods controlled 
by the corporate lobbies! Support Family Farms Not Factory farms!
                                 ______
                                 
                        Comment of Sharon Berrt
    Date Submitted: Thursday, May 10, 2012, 12:01 p.m.
    City, State: Tucson, AZ
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I do not agree with cutting money from these programs. 
Please reconsider and maybe not send money to foreign countries for 
food aid. We need to feed our own before they get any help.
                                 ______
                                 
                        Comment of Amanda Berry
    Date Submitted: Saturday, May 19, 2012, 10:35 p.m.
    City, State: Fort Myers, FL
    Occupation: Hospitality Professional
    Comment: I would like to see the farm bill address healthy, 
sustainable farming practices with a greater focus on agro-diversity 
and natural methods driven by small, private farms and co-ops. Thank 
you.
                                 ______
                                 
                          Comment of Ana Berry
    Date Submitted: Friday, May 18, 2012, 4:30 p.m.
    City, State: Portland, OR
    Occupation: Student
    Comment: Stop subsidizing foods based on benefits to mega companies 
like Monsanto. Support the people you were elected for:

    (1) label our food properly--when it's GMO, when it's truly 
        organic, when it has dangerous carcinogens in it

    (2) subsidize small farms to distribute good local food

    (3) we all know it costs the government more to take care of our 
        obesity epidemic and heart problems than it would cost to 
        subsidize good food.
                                 ______
                                 
                          Comment of Ben Berry
    Date Submitted: Friday, May 18, 2012, 5:01 p.m.
    City, State: Cedar, NC
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I support research and innovation funding. We need to 
focus our energies on diversifying our farms, increasing transparency, 
and encouraging competition. Less subsidies to commodity crops! 
Remember that organic is the largest growing sector in agriculture. 
Support the transition and interest in local and organic.
                                 ______
                                 
                       Comment of Catherine Berry
    Date Submitted: Wednesday, May 02, 2012, 1:21 a.m.
    City, State: High Point, NC
    Occupation: Disabled/Retired
    Comment: Please consider safe and abundant water provisions. 
Investment into organic produce. Assistance to farmers who produce 
chemically free, humanly raised and slaughtered farm animals.
                                 ______
                                 
                        Comment of Michael Berry
    Date Submitted: Friday, May 18, 2012, 12:26 p.m.
    City, State: Omaha, NE
    Occupation: CPA
    Comment: It is time to stop subsidizing processed food in our 
country. The cost of obesity and the associated health problems is 
exploding. It is time to roll back the farm policies enacted under the 
leadership of Earl Butz and enact smart and ultimately healthy farm 
policies. As with the dramatic reforms of Earl Butz, farmers will adapt 
to the changes and again begin to supply our country with healthy food.
                                 ______
                                 
                     Comment of J. Ellen Berryhill
    Date Submitted: Friday, May 18, 2012, 5:12 p.m.
    City, State: Menlo Park, CA
    Occupation: Director of Quality
    Comment: Dear Anna,

    I urge you to support the provisions of the farm bill that do the 
following:

    1. Support small farmers (1,000 acres), organic farmers and new 
        farmers trying to get into the industry.

    2. Support for local farmers markets

    3. End subsidies (direct payments and countercyclical commodity 
        programs), and replace them with loophole-free agriculture risk 
        coverage. Also, implement a cap on crop insurance premium 
        subsidies.

    4. Support nutrition programs for the elderly, the poor and for 
        disadvantaged children.

    5. Focus conservation funding on lasting environmental benefits.

    6. Protect the Conservation Stewardship Program (CSP) from 
        disproportionate cuts. Improve CSP by ranking applications 
        solely on their conservation benefits.

    Thank you very much for your support.

J. Ellen Berryhill.
                                 ______
                                 
                          Comment of Bill Best
    Date Submitted: Friday, May 18, 2012, 9:34 p.m.
    City, State: Berea, KY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: 50-150 acres
    Comment: I have farmed for over 60 years and still participate 
actively in two farmers' markets. I also operate an heirloom seed 
business and produce and sell seeds of heirloom beans, tomatoes, 
cucumbers, and winter squash. If we depend on the agricultural giants 
for our food, we will be taking a path to our own destruction.
                                 ______
                                 
                         Comment of Cheryl Best
    Date Submitted: Friday, May 18, 2012, 7:17 p.m.
    City, State: Staunton, IL
    Occupation: Teacher
    Comment: I see firsthand the impact the chemicals have produced in 
my students . . . diabetes, behavior disorders, and obesity to name a 
few. We have to protect future generations!
                                 ______
                                 
                         Comment of Vicki Best
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Tallahassee, FL
    Occupation: Retired
    Comment: I think that the farm subsidies for large agribusiness 
should be discontinued, genetically modified foods should be labeled or 
not used at all, and the ethanol program should be discontinued and 
corn goes back on the food market not the fuel market. Protect us not 
big business! We voted you in, they just pay the bills.
                                 ______
                                 
                        Comment of Linda Bethel
    Date Submitted: Friday, May 18, 2012, 12:18 p.m.
    City, State: Punta Gorda, FL
    Occupation: Registered Dietitian, Licensed Nutritionist
    Comment: Please advocate that the House Agriculture Committee 
ensures that the health of Americans is protected with safe growing 
practices for our food supply. That means avoiding harmful chemicals 
and genetically modified foods, as well as protecting the viability of 
the soil for future production. Industrial farming relies too heavily 
on harmful chemicals.
                                 ______
                                 
                    Comment of Skye Lindanne Bethel
    Date Submitted: Friday, May 18, 2012, 12:20 p.m.
    City, State: Glenn Allen, VA
    Occupation: Retired Counselor
    Comment: It is time for reform. Organic food produces excellent 
health for the consumers and for the Earth. We can make changes in our 
healthcare by affording more people healthy organic food, we can clean 
up the environment and we can improve the quality of life for people 
who want to produce food for locally.
                                 ______
                                 
                       Comment of Ramona Beville
    Date Submitted: Friday, May 18, 2012, 11:27 a.m.
    City, State: Benicia, CA
    Occupation: Adult Education Teacher
    Comment: Quit subsidizing foods that are going to be heavily 
processed. Subsidies are benefiting the manufacturer's of cheap food 
and unhealthy food and this is contributing to the rate of chronic 
illness and obesity in this country. This is not a passive or indirect 
contribution but literally the cause of many illnesses is the 
consumption of highly refined and processed foods instead of live, 
healthy foods that are less shelf stable. The fact that lower income 
people are at higher risk for chronic diseases has to do with the fact 
that healthier food is more expensive and cheap foods are artificially 
cheap. Quit putting money in the pockets of the manufacturers and 
providing cheap ingredients to them, quit subsidizing feed for animals 
and creating an artificial cost for these animal foods. Make farming on 
a small scale attractive to farmers. Make working on the farm an 
attractive way to make a living. Stop subsidizing the mono crops that 
have ruined our top soil, require chemicals to make them fertile and 
are ruining our streams and rivers and creating dead zones in the 
ocean. Stop factory farming practices as they are not paying the full 
price to operate their factories, they are leaving behind environmental 
residue that no one is addressing. Work with farmers to get fresh 
produce to people instead of providing factories with cheap resources 
to sell back to us to make us sick.
                                 ______
                                 
                        Comment of Sally Bianco
    Date Submitted: Friday, May 18, 2012, 11:33 p.m.
    City, State: Chico, CA
    Occupation: Botanist
    Comment: Herger, as a gift to your constituents before leaving us, 
please consider the consumers rather than the profits of the 
agriculture industry and pass reform laws. As a plant scientist and 
someone who lives surrounded by farmland, I know that heavy chemical 
use, lack of crop species/varieties diversity, and many other practices 
of the ag industry are harmful to everyone. Please gift us with your 
true support for a farm reform bill that supports and encourages 
organic farming, crop diversity, reduction of erosive and polluting 
cultivation measures, and scientifically meaningful nutrition programs.
                                 ______
                                 
                         Comment of Ronnie Bias
    Date Submitted: Friday, May 18, 2012, 9:49 p.m.
    City, State: Las Vegas, NV
    Occupation: Retired
    Comment: For GODS sake, please stop poisoning the American people 
and do what's righteously right, we have to give farmers everything 
they need to feed us healthy foods not GMO poison.
                                 ______
                                 
                        Comment of Andy Bicking
    Date Submitted: Thursday, April 05, 2012, 11:41 a.m.
    City, State: Poughkeepsie, NY
    Occupation: Director of Public Policy, Scenic Hudson; on behalf of 
Land Trust Statement
    Comment: Land Trust Statement by Andy Bicking, Director of Public 
Policy, Scenic Hudson

Farm Bill Field Hearing
March 9, 2012
Saranac Lake, New York

    Thank you for arranging today's field hearing on the farm bill and 
for this opportunity to submit comment.
    Scenic Hudson is a 49 year old nonprofit environmental organization 
and land trust that works to protect and restore the Hudson River and 
its majestic landscape as an irreplaceable national treasure and a 
vital resource for residents and visitors. With more than 25,000 ardent 
supporters, we are the largest environmental group focused on the 
Hudson River Valley. Our team of experts combine land acquisition, 
support for agriculture, citizen-based advocacy and sophisticated 
planning tools to create environmentally healthy communities, champion 
smart economic growth, open up riverfronts to the public and preserve 
the valley's inspiring beauty and agricultural and natural resources.
New York Farms Essential to Economy, Food Security
    In New York State and the Hudson Valley, agriculture is a critical 
component of the local, regional and statewide economy. Farm production 
and food processing sectors generate $22 billion annually for New 
York's economy and employ tens of thousands of workers, yet 
approximately $32 million in agricultural output was lost in 2010 due 
to farmland loss. In the Hudson Valley, between 2002 and 2007 (the most 
recent years for which data is available), the valley experienced a 10 
percent loss in farmland. Considering the region plays a central role 
in providing fresh, nutritious food to 10 million New Yorkers 
stretching from New York City to Albany, this represents a serious 
threat to food security and public health.
    This situation has been acknowledged the Northeast Association of 
State Departments of Agriculture (NEASDA). New York State's 
Commissioner of Agriculture Darrel Aubertine has been a leader in 
developing a multi-state agenda for the farm bill that calls for 
promotion of job creation and agricultural market development as well 
as protection of consumers and the future of farming. The Farm Bill's 
Conservation Title--and the Farm and Ranchlands Protection Program in 
particular--is among NEASDA's priorities.
Conservation Easements Critical Strategy for Farm Viability and Urban 
        `Foodsheds'
    Public and private land conservation has an important role in 
ensuring that farming is sustained and grows to meet increasing 
demands. Through the purchase of conservation easements, land trusts 
can ensure that working lands remain accessible to the next generation 
and viable. Easement programs also provide direct payments to farmers 
that often aid in sustaining farm operations. Over the past 15 years, 
Scenic Hudson has put nearly $25 million directly into the hands of 
farmers participating in easement programs. This has had a positive 
effect on related businesses in the agricultural sector (tractor 
repair, large animal veterinarians, farm supply and value added 
producers) that rely on farmers as their principle clients. The result 
has been increased availability of fresh, healthy food to our rural and 
urban communities, and conservation of natural resources from high-
impact development. To underscore this point, a high percentage of 
vendors and products in New York
    City's highly successful Greenmarkets hail from the Hudson Valley 
Region. The Hudson Valley region is truly the ``foodshed'' for one of 
the most populous regions in the country.
    The principle of public-private partnerships with Land Trusts is 
one that must be preserved in the 2012 Farm Bill. Together, land 
trusts, municipalities and the Federal government have important roles 
to play in upholding this principle. The Farm Bill's Conservation 
Title, and the Farm and Ranchlands Protection Program (FRPP) in 
particular, are critical to enable this dynamic and leverage Federal-
local-private investments.
    In the past year, significant progress also has been made in 
advancing thee goals in New York State. On Sept. 26, 2011, Congressman 
Chris Gibson with local farmers, the USDA-Natural Resources 
Conservation Service, Scenic Hudson, Dutchess Land Conservancy, and 
officials from state and local government announced Federal farm bill 
funding to complete the purchase of conservation easements on 10 farms 
in Dutchess and Columbia counties. The total cost of all 10 projects is 
more than $3.6 million, including $1.8 million in funding from the 
FRPP, $1.2 million from Scenic Hudson, $615,000 from the Town of Red 
Hook, and a grant from the New York State Environmental Protection 
Fund. Since there are multiple projects occurring in the same 
communities, this `critical mass' approach to conservation provides a 
direct infusion of capital to the farmers involved, who then have the 
choice to invest the funds in the productive capacity of their farms. 
By protecting multiple farms in a given community, important 
relationships between farmers and access to credit, supplies and 
machinery essential for profitable operations are enhanced.
    As we complete these projects, we are looking forward to the next 
application round for FRPP funds. We have been working with other farm 
families on another assemblage of several farms in Columbia County and 
Dutchess counties. The impact of strategically conserving groups of 
farms in these communities will be significant as farmers are provided 
the certainty that surrounding lands will remain in agriculture; 
institutions that lend to farmers can be sure their investments are 
stable; and, suppliers of equipment, seed, feed and other support 
services will have certainty their clients will remain vital.
Farm Bill Must Enable Partnerships with Land Trusts to Protect Working 
        Lands and Regional Strategies that use ``Critical Mass'' 
        Approach to Conservation
    To preserve these opportunities for the Hudson Valley, New York and 
northeastern states, Scenic Hudson recommends that the 2012 Farm Bill 
include and support the following provisions:

  <bullet> No disproportionate cuts to the Conservation Title and the 
        Farm and Ranchlands Protection Program in particular;

  <bullet> Support for the principle of public-private partnerships 
        with land trusts, efforts to protect regions' ``foodsheds'', 
        and plans that ensure a that ``critical masses'' of farms are 
        protected;

  <bullet> Fair treatment for small acreage farms typical of the 
        northeast in the Farm and Ranchlands Protection Program; and,

  <bullet> If consolidations are considered for Conservation Title 
        Programs, management of programs that protect working lands 
        through permanent easements should be separate from those that 
        seek to retire lands from production.

    Thank you for this opportunity to provide comment. If you have any 
questions, I can be reached at [Redacted] or [Redacted].
                                 ______
                                 
                       Comment of Elaine Bidstrup
    Date Submitted: Friday, May 18, 2012, 8:41 p.m.
    City, State: St. Louis, MO
    Occupation: Retired School Counselor
    Comment: Dear Mr. Akin,

    It is time to create a farm bill that supports family farms and 
healthy food, while at the same time providing jobs for many. ``Big'' 
agriculture with its ``factory'' farms and antibiotic filled animals 
and genetically altered produce are not doing this. Please support a 
farm bill that will pay family farmers to grow healthy produce and 
raise healthy animals, instead of allowing their property to be taken 
over by big agriculture, which doesn't seem to have this country's 
health as its main concern.
                                 ______
                                 
                      Comment of Laurel Biedermann
    Date Submitted: Friday, May 18, 2012, 9:29 a.m.
    City, State: Colorado Springs, CO
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I want to be able to have my crops SAFE from GMO 
contamination. I want to know which foods contain GMO in the stores. I 
want to be able to water my crops with uncontaminated water that hasn't 
been tainted with chemicals from `fracking' . . .
    Please don't be short-sighted in looking at these issues. 
``Frankencrops'' provide 'food' but not sustainability long-term. 
Fracking provides `power' short term but not sustainability. Please 
protect the integrity of our REAL food . . . heirloom seeds and water 
in our State.

Laurel Biedermann.
                                 ______
                                 
                       Comment of Lauren Biedron
    Date Submitted: Wednesday, May 16, 2012, 1:51 p.m.
    City, State: Chicago, IL
    Occupation: Nonprofit
    Comment: Hello,

    I am writing to express my concern about proposed changes to the 
farm bill that may negatively affect hungry families.
    Currently, I work for Feeding America, the nation's leading 
domestic hunger-relief charity. Prior to this, I worked at 
Chicagoland's food bank--which provided food to more than 678,000 
(unduplicated!) individuals each year through a network of local food 
pantries.
    My entire career has been in hunger relief, and through my work, I 
have seen firsthand that many families in my community--and across the 
country--are struggling. Simultaneously, food banks and other feeding 
agencies are seeing dramatic declines in the availability of food 
through TEFAP. This, coupled with increasing efficiencies in 
manufacturing (which often result in less product being available for 
donation) and rising food costs (which limit hunger relief agencies' 
abilities' to purchase food to offset the aforementioned declines) have 
created the ``perfect storm'' for families in need and the 
organizations trying to help them.
    Simply put, we are trying to feed more people, with less food.
    This is a significant problem, and while hunger relief agencies are 
fortunate to benefit from strong community support, the philanthropic 
community alone cannot be expected to fill the gap in the number of 
meals needed to meet community demand.
    Further, proposed cuts to the SNAP program--our country's primary 
defense against hunger--have significant potential to drive more 
families into food pantry lines and place additional burdens on an 
already limited charitable assistance network.
    Hunger is a serious problem in our country. A strong farm bill will 
make sure that struggling families can put food on the table. I ask 
that you pass a farm bill that protects and strengthens programs like 
SNAP, TEFAP, and CSFP. Families simply cannot afford cuts to these 
programs.
            Thank you,

Lauren Biedron.
                                 ______
                                 
                       Comment of Wendy Bienvenu
    Date Submitted: Sunday, May 20, 2012, 2:45 a.m.
    City, State: Keene, NH
    Occupation: Communications
    Comment: The way we grow food & raise animals is a reflection on 
our values and our humanity, but at this time it is not reflecting well 
on our species. I want the purest organic heirloom seed foods I can 
get, not the cheapest. No shortcuts. This affects too many things that 
are precious: health, children, the environment. Get those corrupt FDA 
people out and get someone in there to do the job right. Go organic, 
label everything, and Please No GMO's! Stop with the frankenfoods. NO!
                                 ______
                                 
                        Comment of Jody Biergiel
    Date Submitted: Friday, May 18, 2012, 11:49 a.m.
    City, State: Santa Cruz, CA
    Occupation: Organic Certifier
    Comment: As a citizen and a consumer, as well as an agricultural 
industry member, I urge you to re-envision the farm bill and be 
innovative with solutions. The goal should be to support health and 
provide benefit to as many people as possible. Social programs and 
support for agriculture systems that have less impact on our health and 
the environment--such as organic systems--should be your top 
priorities. Thanks!

Jody Biergiel.
                                 ______
                                 
                      Comment of Elizabeth Bierko
    Date Submitted: Sunday, May 20, 2012, 7:44 p.m.
    City, State: Yorktown Heights, NY
    Occupation: eaching Artist
    Comment: T I am increasingly concerned about the quality of our 
food in the USA. The use of pesticides and genetically modified fruits 
and vegetables seem to pose health risks for us and our children. I 
believe GMO's should be labeled, or better yet outlawed as in Europe. 
Please do not allow agribusiness interests to rank higher than the 
health and well-being of U.S. citizens.
                                 ______
                                 
                         Comment of Kory Bierle
    Date Submitted: Sunday, May 20, 2012, 12:51 a.m.
    City, State: Midland, SD
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 1,000+ acres
    Comment: Dear House Ag Committee,

    Please streamline the program and sign up process. There are too 
many deadlines. Also, it would be nice to have some risk back in 
agriculture for all players. Too many larger producers are guaranteed a 
great gross margin through programs and subsidized insurance in various 
forms coupled with mandated markets for their production.
    Another idea would be to not only tighten the participation 
requirements, but to limit payments on a graduated scale for larger 
producers. For each area and crop find the average size of operation, 
set the payment rate, and for larger producers still pay, but at a 
diminished rate for the acres that they operate at for example 50% more 
than the average. Example: The average size of an operation in an area 
is 5,000 acres. Pay the same rate to everyone on their first 5,000 
acres but from 5,001 to 10,000 pay a reduced rate and pay a further 
reduced rate for acres 10,001 and above.
    For NAP insurance, don't pay renters of BLM or Forest Service land 
more than their annual bill for summer lease! Sometimes producers get 
paid to summer their cattle! As a private land producer, I cannot 
compete with that.
    Thank you.
                                 ______
                                 
                        Comment of Daniel Bierma
    Date Submitted: Friday, May 18, 2012, 1:51 p.m.
    City, State: Holland, MI
    Occupation: Student--Social Work/Divinity
    Comment: We have too much corn and soybeans. Stop subsidizing big 
industry agriculture by supporting specific crops that are not 
producing healthy foods. Please support diversity in crops and support 
the people that consume them. Farmers markets that provide locally 
grown crops and support the local economy are the way to go.
                                 ______
                                 
                       Comment of John Biernbaum
    Date Submitted: Friday, May 18, 2012, 10:54 p.m.
    City, State: Haslett, MI
    Occupation: Horticulture Professor, Michigan State University
    Comment: Congressman Rogers,

    Your support for agriculture in Michigan is essential. It is 
important that the continued growth of organic and ecological 
agriculture be supported through the Organic Research and Extension 
Initiative and Beginning Farmer and Rancher Initiatives. Small scale 
intensive farming can make a big difference in rural and urban 
Michigan. The EQIP initiatives including the organic initiative and the 
high tunnel initiative and the conservation stewardship program can all 
contribute to jobs, the local economy and our food security and health. 
Please make the farm bill a priority and be willing to support the 
efforts of Senator Stabenow to support specialty crops and efforts to 
protect farmers and our environment. If you want to see how it can make 
a difference, please ask for a tour of the Michigan State University 
Student Organic Farm and you can see firsthand.

John Biernbaum.
                                 ______
                                 
                         Comment of John Bigler
    Date Submitted: Friday, May 18, 2012, 5:54 p.m.
    City, State: Mount Pleasant, SC
    Occupation: Patent Attorney
    Comment: Food must be grown in a way that is sustainable and not 
destructive of the environment or potentially toxic to the people who 
produce it. The emphasis on chemicals and GMO's is dangerous and 
damaging our precious resources.
                                 ______
                                 
                         Comment of Jeff Bigman
    Date Submitted: Friday, May 18, 2012, 2:26 p.m.
    City, State: Sylmar, CA
    Occupation: Graphics
    Comment: upport organic farming, label GMOs or Remove them from the 
market. Protect our health! Keep Monsanto Out of the FDA. Our food 
supply should be sacred, we need to be protected from corporate greed.
                                 ______
                                 
                         Comment of Mike Bilger
    Date Submitted: Thursday, May 17, 2012, 3:43 p.m.
    City, State:
    Producer/Non-producer: Producer
    Type: Roanoke, VA
    Size: Vegetables
    Comment: Less than 50 acres

  <bullet> America needs a farm bill that creates jobs and spurs 
        economic growth--support programs like the Value Added Producer 
        Grants Program by guaranteeing $30 million of mandatory funding 
        per year. VAPG provides seed money to help farmers innovate in 
        agriculture and create jobs while securing a sustainable path 
        to market-based farm profitability. The Local Farms, Food, and 
        Jobs Act includes numerous provisions that would promote 
        entrepreneurship, job creation, and sustained economic 
        development in rural areas.

  <bullet> America needs a farm bill that makes healthy food widely 
        available to all Americans--including schoolchildren! We must 
        provide flexibility for states to use existing food procurement 
        programs to purchase fresh, healthy food from local farmers and 
        ranchers. The Local Farms, Food, and Jobs Act directly 
        addresses these needs by supporting local, community based food 
        system development--its key provisions should be in the farm 
        bill.

  <bullet> America needs a farm bill that protects our natural 
        resources--protect the Conservation Stewardship Program from 
        unfair funding cuts, and improve it by ranking applications 
        solely on their conservation benefits. Farmers count on CSP and 
        other conservation programs to conserve soil for future 
        generations, keep water and air clean, and create habitat for 
        wildlife--all while farming profitably. In my work with NRCS 
        and Extension personnel (at SARE PDP trainings where I have 
        presented, the Conservation Innovation Grant that I am involved 
        in, and other contexts), I have become aware just how stretched 
        USDA agency personnel are--especially NRCS--by constant budget 
        cuts. Most of tese folks are doing their level best, and 
        inadequate funding is a major factor in their not fully meeting 
        their mandate to serve the farming community through 
        conservation programs, etc.

  <bullet> America needs a farm bill that invests in the next 
        generation of farmers and ranchers--guarantee $25 million per 
        year in mandatory funding for the Beginning Farmer and Rancher 
        Development Program (BFRDP). We need a national strategy and 
        commitment to support beginning farmer and ranchers entering 
        agriculture. With an aging farm population, now is the time to 
        invest in the future of American agriculture by nurturing new 
        agriculture start-ups.

    <ctr-circle> One current BFRDP project is The Virginia Beginning 
            Farmer and Rancher Coalition Project, coordinated through 
            Virginia Tech with 25 partners, including VABF, Appalachian 
            Sustainable Development, Local Food Hub in Charlottesville, 
            SustainFloyd, and Fauquier Education Farm. This BFRDP-
            funded Coalition has developed an extensive beginning 
            farmer training curriculum with five modules (whole farm 
            planning, land acquisition and tenure, sustainable 
            production practices, marketing, and holistic business 
            planning), and is establishing a statewide farm mentor 
            network to facilitate hand-on training of new farmers by 
            experienced farmers. Already, many new and aspiring farmers 
            in Virginia are looking toward the Coalition as a vital 
            resource to help them become successfully established. 
            Their success benefits all in our region: more and higher 
            quality local food, more jobs and entrepreneurial 
            opportunities, stronger rural communities, and better 
            resource conservation.

    <ctr-circle> The BFRDP, first authorized at $19 million per year 
            under the 2008 Farm Bill, is funding many projects and 
            initiatives like this across the U.S., but has also had to 
            turn down many other excellent proposals because of limited 
            funding. Thus, we are asking the House Agriculture 
            Committee to include in its 2012 Farm Bill at least $25 
            million per year for BFRDP.

    <ctr-circle> In addition to training and technical assistance, new 
            and aspiring farmers need help gaining access to land, 
            capital and credit resources, and conservation programs in 
            order to realize their goals. The Beginning Farmer and 
            Rancher Opportunity Act (H.R. 3236) introduced by Rep. Tim 
            Walz (D-MN) and Rep. Jeff Fortenberry (R-NE) contains many 
            additional provisions that address these needs, and thus 
            should be part of the 2012 Farm Bill.

    <ctr-circle> America needs a farm bill that drives innovation for 
            tomorrow's farmers and food entrepreneurs--fund the Organic 
            Agriculture Research and Extension Initiative (OREI) at $30 
            million per year in mandatory funding. Investment in 
            agricultural research is vital to continued productivity 
            and innovation in growing and diverse sectors of American 
            agriculture, such as organic agriculture. The Specialty 
            Crops Research Initiative provides vital research 
            information for producers of fruits and vegetables, foods 
            that are especially important for human health and for 
            preventing childhood obesity and type II diabetes. It 
            should be re-authorized at its current level of $50 million 
            per year. [Note--this is not the same as the Specialty 
            Crops Block Grants which have supported VABF's research on 
            winter and summer squash the past several years. Funding 
            for the Block Grants appears safe; however it does not hurt 
            to advocate for its continuation when you comment on 
            research issues within the farm bill.]

      b One regional example of the benefits of the OREI is the 
            planning
              grant for organic management of a recently-introduced 
            invasive pest,
              the Brown Marmorated Stink Bug, that threatens to cause 
            devastating
              losses to a wide variety of fruit and vegetable crops. 
            The project team is
              submitting a proposal for a full research and outreach 
            program to develop
              an integrated, organic approach to controlling this pest. 
            In order to ensure
              sufficient funding for this and many other vital research 
            proposals in or-
              ganic production, OREI funding should be increased from 
            the current $20
              million to $30 million per year (not reduced to $16 
            million as proposed in
              the Senate bill).

      b Another important research issue is the Agriculture and Food 
            Research
              Initiative (AFRI), which is currently the USDA's largest 
            competitive
              research grants program. Clarifying language is needed in 
            the 2012 Farm
              Bill to (1) ensure that Requests for Application are 
            fully open and competi-
              tive (applicants may include individuals or 
            nongovernmental organizations
              as project leaders, not restricted to universities and 
            colleges); (2) set aside
              at least 5% of AFRI funding for classical animal and 
            plant breeding leading
              to the release of farm-ready public (non-patentable) crop 
            varieties and live-
              stock breeds; and (3) make sustainable and organic 
            production systems a
              research priority within AFRI.

    <ctr-circle> Note that here in the Southeast, the Organic Seed 
            Alliance conducted a survey and identified a strong need 
            among farmers for organic and locally adapted seed, and 
            assistance in seed production [this relates to the need for 
            public varieties in general--vital for crop germplasm 
            diversity/conservation, farmer viability & empowerment 
            (non-patented seed), and adaptation to local conditions and 
            changing climate.]

    The big question that will be asked over and over within the 
Committee (and on the floor of both House and Senate) will be: OK, how 
are we going to pay for all the requested programs and their maintained 
or increased funding? Answer: there has been a major shift in farm bill 
Funding from Commodity Subsidy programs to Crop Insurance programs, so 
that the latter now actually spends slightly more than the former. 
Commodity Subsidies have traditionally had per-farm payment limits and 
conservation compliance requirements (though seriously undermined by 
loopholes); however Crop Insurance programs currently have no such 
limits. It has been estimated that imposing reasonable limits and 
conservation requirements on crop insurance could save about $1 billion 
a year--easily enough to make up for the many small increases requested 
under the NSAC farm bill agenda, and even to restore Conservation 
Program funding to current levels.
                                 ______
                                 
                      Comment of Elizabeth Biliske
    Date Submitted: Friday, May 18, 2012, 10:25 a.m.
    City, State: Baltimore, MD
    Occupation: Retired Social Worker
    Comment: The farm bill should focus on encouraging small, 
sustainable farms and programs that support good nutrition for low 
income people. The current price supports that encourage corporate 
farms to produce environmentally destructive non-nutritious food must 
go. This includes large inhumane feeding lots for livestock and the 
stranglehold large corporations like Monsanto have gained over food 
procurers with genetically engineered crops.
                                 ______
                                 
                      Comment of Kelly Billbrough
    Date Submitted: Friday, May 18, 2012, 9:06 a.m.
    City, State: Branchville, SC
    Occupation: Civil Engineering Technician
    Comment: Please help make our food safe and clean, remove all 
additives and allow local grown foods in our schools. Stop purchasing 
foods processed overseas and keep our local produce on our local store 
shelves. Mostly, Remove additives and items that we know are dangerous 
to our overall health. Keep our foods all natural.
                                 ______
                                 
                       Comment of Lauren Billings
    Date Submitted: Tuesday, April 24, 2012, 12:08 p.m.
    City, State: Forest City, NC
    Producer/Non-producer: Producer
    Type: Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: Small organic and family farms need your support. we are 
fortunate to have one spouse working outside the farm, who is able to 
earn a decent living; many of our neighboring farmers do not have 
outside income, and they live on what they can make on their farms. 
They (and we) have dedicated their lives--giving up creature comforts 
in order to produce healthy, organic food.
    Please consider passing a farm bill that gives working families the 
upper hand--not a giant company like Monsanto.
    Please discontinue subsidies for corn. It pollutes our land, 
poisons our drinking water, and leads to obesity in children. It also 
puts small organic farms at a disadvantage while filling the pockets of 
Monsanto.
                                 ______
                                 
                       Comment of Charles Bingham
    Date Submitted: Saturday, May 19, 2012, 8:14 a.m.
    City, State: Sitka, AK
    Occupation: Corporate Communications Specialist/Nonprofit Health 
Organizations
    Comment: It's time for real food reform, more organics, more 
community gardens, more family farmers, no GMO crops, real farming with 
crop rotation (no mono-crop fields, it's how the Dust Bowl started).
                                 ______
                                 
                        Comment of John Bingham
    Date Submitted: Wednesday, March 14, 2012, 12:18 p.m.
    City, State: Essex, NY
    Occupation:
    Comment: The House Agriculture Committee's ``field hearing'' in 
Saranac Lake made no mention of the grave threat of unconstrained GMO 
farming practices to non-GMO farming and farmlands.
    GMO buffer zones by GMO farmers, and GMO seed ``Caution'' labeling 
by patent owners, should become mandatory. GMO contamination of non-GMO 
land (both land in production and fallow, field and forest, private and 
public parcels) is real and expanding rapidly.
    While farmers and consumers struggle for curtailment of law suits 
against non-GMO farmers, for institution of insurance for non-GMO 
farmers (paid for by GMO seed companies), and for mandatory labeling of 
GMO food products/ingredients including GMO animal feeds, all important 
curtailments, the very critical issue of holding GMO farmers and seed 
producers responsible for curtailing physical and financial damage to 
others is being ignored.
    Pollen and seed drift buffers need to be mandatory on GMO field 
edges (e.g., no GMO planting within 600 ft. of adjoining properties). 
And GMO farmers need to be held legally responsible for removal 
(without chemicals) of GMO plant contamination, migration of Herbicide 
Resistant weeds onto non-GMO private and public lands and roadways, and 
restitution for lost income from lost crop yields. Non-GMO farms must 
not be forced to lose the field productivity of a 600 ft. buffer zones 
on their already small parcels.
    Unchecked by Congress, without GMO buffers on GMO fields 
themselves, and without GMO seed labels requiring these GMO buffer 
perimeter, U.S. farmlands will become increasingly GMO degraded. With 
loss of soil fertility and infestations of resistant weeds, U.S. 
farming, both GMO and non-GMO, would most likely migrate across the 
landscape, moving increasingly off-shore, ``wherever food grows best 
(land is cheapest)'', devastating the agricultural base of small and 
large family farms, both at home and abroad, threatening America's 
future ability to feed itself.
                                 ______
                                 
                        Comment of Harold Birch
    Date Submitted: Tuesday, April 03, 2012, 9:07 a.m.
    City, State: Piasa, IL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: As the farm bill is considered I would recommend removing 
the direct payments. I would recommend at the same time that we 
continue to support crop insurance as this is the safety net for 
farmers. Downsizing the FSA offices and keep insurance sales to the 
public would be another savings and keep service at the choice of the 
American farmer rather than limiting insurance choices to government 
employees. These types of choices can reduce the cost of programs to 
the government while maintaining the safety net and keeping choices in 
the public.
                                 ______
                                 
                       Comment of Walter Birdwell
    Date Submitted: Friday, May 18, 2012, 12:52 p.m.
    City, State: Laguna Vista, TX
    Occupation: Retired
    Comment: Support family farmers and individual owners. Continue and 
increase support for conservation and organic farm programs. End 
subsidies for corporate and incorporated farms.
                                 ______
                                 
                       Comment of Jason Bischoff
    Date Submitted: Saturday, May 19, 2012, 10:55 a.m.
    City, State: Madison, WI
    Occupation: Chef
    Comment: What we put in our bodies is the most important thing in 
the world. America is far behind other nations in passing legislation 
that prevents GMO's and other experimental foods in our stores/markets/
on our farms. While it is important to grow enough food that can feed 
the nation, it is also important we don't consume harmful substances. I 
believe while heatedly that modifying the genes of plants to grow when 
they shouldn't, be resistant to bugs and pesticides, to only grow once 
and them die so a new crop must be planted every year--these things and 
more are wrong. Please pass legislation that stops the unnecessary 
profiteering from food. Thank you.
                                 ______
                                 
                       Comment of Melissa Bishop
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Setauket, NY
    Occupation: Programmer/Analyst--State Employee
    Comment: I'm tired of being worried about what is in my food. We 
are being force fed unhealthy, dangerous, science experiments. Our 
livestock is tortured and pumped up with so many drugs and force fed 
food it was never meant to eat.
    America was founded on the backs of local farmers & small 
businesses. It is time we return to our roots. Supporting local farmers 
& businesses will restore our economy, bring us healthy, local food and 
stop the torture of livestock. It sickens me that small town America is 
being wiped out and that local farmers are being forced out of 
business.
                                 ______
                                 
                        Comment of Scott Bishop
    Date Submitted: Thursday, May 17, 2012, 4:28 p.m.
    City, State: Olympia, WA
    Occupation: Retired/Volunteer
    Comment: End all subsidies for all non-organic food operations. 
Limit speculation on food commodities to folks in the food business. 
Break up the large industrial agriculture food companies and eliminate 
their monopolistic practices.
                                 ______
                                 
                         Comment of Janet Black
    Date Submitted: Friday, May 18, 2012, 12:50 p.m.
    City, State: Hattiesburg, MS
    Occupation: Retired Nurse Practitioner and Former Farmer
    Comment: Please come up with a farm bill that supports organic, 
sustainable agriculture and small farmers. The big agribusiness 
companies don't need subsidies; the small farmers do.
    Do what is right for consumers and support healthy food!
                                 ______
                                 
                        Comment of Laurie Black
    Date Submitted: Saturday, May 19, 2012, 8:32 p.m.
    City, State: Seattle, WA
    Occupation: Technology
    Comment: As a consumer I want to know what I'm eating is grown in a 
sustainable way that supports small, local and regional farms rather 
than U.S. big Ag and imported foods. Our farm policy should be more 
supportive of this, as well as organically grown foods rather than 
handing out big subsidies to corporate agriculture that does not 
practice sustainable farming.
                                 ______
                                 
                         Comment of Paul Black
    Date Submitted: Friday, May 18, 2012, 8:27 p.m.
    City, State: Des Moines, IA
    Occupation: Fitness Instructor
    Comment: Right now I am working with a nutritionist concerning food 
sensitivities I have. It is important for me to know what is in the 
food I eat and it is also important for me to have some foods as 
organic. There are many more people in this same situation and this 
needs to be considered when looking at the Farm bill.
                                 ______
                                 
                        Comment of Sylvia Black
    Date Submitted: Friday, May 18, 2012, 3:12 p.m.
    City, State: Portland, OR
    Occupation: Housewife
    Comment: It is truly time to support the small U.S. farmer. Large 
corporate farms do much to diminish the quality not only of food but 
also the environment. On the other hand small farms, particularly 
organic farms, produce food which has much more nutritional value as 
well as favorably treating the environment. Small farmers also provide 
nutritional information to the public at farmers' markets and at other 
venues they sell their produce. Corporate farms are responsible for 
much or the terrible products used not to combat insects and other 
organisms they feel are harmful to their crops, putting the public at 
risk due to the increased chemical use. Our citizens need to be able to 
trust their food supplies and not be always fearful of what might be 
lurking in their fruits and vegetables.
                                 ______
                                 
                      Comment of Taneeka Blackburn
    Date Submitted: Sunday, May 20, 2012, 9:22 a.m.
    City, State: Atlanta, GA
    Occupation: Admin. Assistant
    Comment: I want organic natural foods at the farmers markets, the 
local grocery stores. I refuse to battle cancer and other life 
threatening diseases due to the food I buy in good faith . . . 
Chemicals and other additives and preservatives are ruining our 
nation's health more and more as time passes all for the profit of 
corporate food companies. I have a God given right to live a healthy 
life to the beat of my ability. Corporate companies should never be 
able to interfere with this God given right for the sake of profits and 
capital gains. Never.
                                 ______
                                 
                     Comment of Alloise Blackowiak
    Date Submitted: Friday, May 18, 2012, 12:14 p.m.
    City, State: Sarasota, FL
    Occupation: Engineer
    Comment: Dear Congressmen and Women,

    We as a nation are suffering the terrible health consequences 
including rapidly rising obesity, diabetes and heart disease that are 
directly linked to the over consumption of sweet and fatty foods that 
have been subsidized by farm bills in the past. Our medical system is a 
financial disaster because of the extreme medical costs of diseases 
like diabetes which killed my father, and it will be impossible to 
control our national debt without reducing medical costs.
    A healthy farm bill can help resolve all of these problems. Please 
phase out all agricultural subsidies while boosting support for 
farmer's markets, land conservation and organic farming which protects 
farm workers against dangerous pesticides.
    Our nation does not need to subsidize large farmers and food 
companies. We can all benefit from healthier not cheaper food.
    Thank you!

Don.
                                 ______
                                 
                        Comment of Carolyn Blake
    Date Submitted: Friday, May 18, 2012, 6:22 p.m.
    City, State: Kapaa, HI
    Occupation: Artist and Ag Related Business Owner
    Comment: The time has come to stand up for small-farms and farmers! 
Please do not add additional regulations and barriers on these 
backbones of rural and urban communities. Instead, stop giving taxpayer 
handouts to chemical and seed companies, and large industrial farms 
that destroy communities, degrade our environment and the health and 
well being of our people.
                                 ______
                                 
                       Comment of Sally Blakemore
    Date Submitted: Friday, May 18, 2012, 4:41 p.m.
    City, State: Santa Fe, NM
    Occupation: Book Designer and Book Packager
    Comment: We need good organic food for this nation.
    Big corporate farms torture their animals, provide hormones and 
antibiotics in the food chain and now the radiation coming in from 
Fukushima needs monitoring and top soil testing. We must support real 
farmers and their family farms. Vote For Good Food For America.
                                 ______
                                 
                       Comment of Kathleen Blanc
    Date Submitted: Friday, May 18, 2012, 12:45 p.m.
    City, State: Bemidji, MN
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: As a grower and consumer I want GMO seeds and food to be 
labeled. Sustainable growing methods need to be funded and explored. 
The public needs to be told the Truth about our food supply i.e., that 
as is it is causing degenerative disease. I want organic food to be the 
norm in our country. I want to be told the truth and at the very least 
be able to make choices based on the truth on the ingredient labels.
    I want our government to start acting with integrity and wisdom 
instead of the money grubbing bottom line stuff that feeds the big 
business people. I am saddened at who we have become at the political 
level. I want our government to be responsive to we the people when it 
comes to growing and being able to eat healthy, wholesome food.
                                 ______
                                 
                       Comment of Lydia Blanchard
    Date Submitted: Friday, May 18, 2012, 11:20 p.m.
    City, State: Santa Cruz, CA
    Occupation: Psychotherapy
    Comment: I require organic, non-genetically modified, GMO-labeled 
food, where workers, all animals, and soil are fairly treated. I am 78 
years old and must have this for my productive health.
    Thank you for initiating and voting for these things, thereby 
showing kindness, respect, and gratitude for others and yourselves.
    Between Mothers' and Fathers' Days.
                                 ______
                                 
                       Comment of Kathleen Blank
    Date Submitted: Friday, May 18, 2012, 2:05 p.m.
    City, State: Park City, UT
    Comment: Please support healthy local food by supporting a farm 
bill that puts nutrition, conservation and support for organic and 
sustainable agriculture first, not the best interests of big 
agribusiness.
                                 ______
                                 
                       Comment of Nancy Blanning
    Date Submitted: Friday, May 18, 2012, 2:45 p.m.
    City, State: Denver, CO
    Occupation: Teacher
    Comment: My family and I eat organic foods because we know it is 
the best quality and most health providing for our lives. We have our 
own organic garden and are committed to this mode of food production. 
We ask that a farm bill will recognize that support of independent food 
growers is essential to our future. The quality of food is at stake 
with modification of seed. There is an honesty and integrity to the 
small farm that is so in contrast to agribusiness whose only motivation 
and goal is to make as much money as they can without thought for 
others or the future. Please honor and respect the independent farmer 
in his or her commitment to protect and guard our food supply as truly 
life supporting, not just calorie producing.
                                 ______
                                 
                   Comment of Richard & Valarie Blau
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Tampa, FL
    Occupation: Food Law Attorney
    Comment: The Farm bill as currently drafted should be amended to 
adjust priorities in favor of (i) providing support for expanded 
organic And sustainable farm productivity, and (ii) supplying healthier 
food to our nation's most vital future resource--our children.
    In order to accelerate the expansion of our nation's organic and 
sustainable agriculture, we need more than economic incentives. 
Agricultural research at the USDA and land-grant universities has 
overwhelmingly focused on non-organic methods. While these policies 
have greatly increased crop productivity, it is time with this farm 
bill to take the next step and support more progressive agriculture. 
Organic and sustainable agriculture do not use all of the patented 
products that conventional agriculture does, and thus do not have the 
industry supporting research at the same level. This is where we need 
the Federal government's support. The farm bill must be amended to 
specifically provide increased support for these initiatives.
    As for our nation's children, the farm bill must increase, rather 
than cut, financial support for school nutrition programs. During the 
depths of the Great Recession (in 2010-2011), the number of students 
receiving subsidized lunches rose to 21 million from 18 million in 
2006-7, a 17 percent increase, according to an analysis by The New York 
Times of data from the Department of Agriculture, which administers the 
meals program. Eleven states, including Florida, Nevada, New Jersey and 
Tennessee, had 4 year increases of 25 percent or more, huge shifts in a 
vast program long characterized by incremental growth.
    These alarming increases are not abating as the Recession recedes. 
For example, this year statistics from the Wyoming Department of 
Education show that 37 percent of students in Wyoming receive 
breakfasts and lunches subsidized by the Federal government; the 33,052 
students qualifying for free and reduced-price meals represent a 2 
percent increase over the 32,384 in the 2010-11 school year. Likewise, 
60 percent of Georgia's public school students now receive either a 
free or reduced lunch every day, with an increase of almost 50,000 
students in the last 5 years; in 2010, the program fed more than 31 
million children.
    Not only is the need to feed rising, but we have food quality 
issues as well that the farm bill must address now. Young Americans 
consume huge amounts of refined starch, sugar, red meat, very 
inadequate quantities of fruits, vegetables, beans, nuts, and whole-
grain high-fiber foods. Copious amounts of research data confirm that 
those factors are directly related to the increase in juvenile diabetes 
and will, in the future, increase risk of cardiovascular disease. We 
now also have very direct evidence that the quality of our school-
supplied foods is directly affecting the rates of adolescent obesity in 
this country.
    The farm bill needs to be amended to increase funding for 
successful and positive food programs such as the Women, Infants, [and] 
Child[ren] (WIC) program which does very specifically promote healthy 
food and exclude unhealthy food. The legislation also must be revised 
to redirect funding for less successful programs such as the SNAP 
Program, (the Supplemental Nutrition Assistance Program); although 
well-funded at almost $80 billion a year, the program functions mainly 
as a conduit for underwriting the producers of junk foods and soda. 
While SNAP is an essential program for many people, the quality of what 
foods qualify this program must be redefined to avoid feeding the 
existing epidemics in juvenile diabetes and obesity.
    Amending the SNAP Program to preclude sugar-sweetened beverages is 
an obvious place to start. Each day, the government and tax payers pay 
for the purchase of 20 million servings of sugar-sweetened beverage. 
That's per day. Such purchases arguably are the single most important 
contributor, as a single food, to obesity and related chronic diseases. 
A farm bill that continues to allow spending $4 billion a year for that 
one product category which everyone acknowledges offers little if any 
positive health benefit cries out for change. Congress should amend it 
to make those changes.
    Thanks for your time and consideration.

Richard & Valarie Blau,
Tampa, Florida.
                                 ______
                                 
                      Comment of Philip Blaustein
    Date Submitted: Friday, May 18, 2012, 12:43 p.m.
    City, State: Parrish, FL
    Occupation: Physician
    Comment: Please promote organically grown produce. Also cage free, 
hormone & antibiotic free meat & eggs. Cut back on GMO's please and 
label them so we know what we're getting.
                                 ______
                                 
                   Comment of Daniel Blaustein-Rejto
    Date Submitted: Wednesday, May 02, 2012, 8:48 p.m.
    City, State: Providence, RI
    Occupation: Student
    Comment: Dear Representative Cicilline,

    I want to express my support for increasing funding for the 
Assistance for Community Food Projects program under Title IV of the 
farm bill, and for increasing funding for the Beginning Farmer and 
Rancher Development Program. These two initiatives support innovation 
in the agricultural sector and in food access, two areas that our 
country desperately needs changes within.
    Additionally, I hope that you support the Senate's proposed 
elimination of Direct Subsidies. However, I would like to point out 
that shifting to crop insurance alone will not support long term farm 
and crop resilience. In light of predicted increases in climate and 
weather variability with climate change, crops and farms will likely 
experience wider fluctuations in yield. Providing insurance alone will 
not incentivize farmers to adapt to these projected changes. If 
insurance is to be provided it should at least be tied to incentives 
for farmers to diversify their crops and management practices in 
anticipation of future weather and climate risks.
            Thank you for taking the time to consider this feedback,

Daniel Rejto.
                                 ______
                                 
                         Comment of Donna Blauw
    Date Submitted: Saturday, May 19, 2012, 2:55 a.m.
    City, State: Lake Forest Park, WA
    Occupation: Unemployed
    Comment: Please support our organic farmers. We need food not laced 
with GMO and chemical fertilizers. Please support our organic farmers 
that are attempting to supply us with food not contaminated by chemical 
fertilizers and GMO.
    Thank you.
                                 ______
                                 
                       Comment of Brenda Blevins
    Date Submitted: Friday, May 18, 2012, 4:41 p.m.
    City, State: Lebanon, TN
    Occupation: Teacher
    Comment: As a parent I have switched over as much as possible the 
amount of organic foods my children eat. I believe the health benefits 
alone outweigh the increase in my grocery bill. As an educator I see 
the effects of unhealthy eating with my students who come from poverty. 
It is very important to me that more funds are put into making our 
children healthier as a nation.
                                 ______
                                 
                       Comment of Melissa Blindow
    Date Submitted: Sunday, May 20, 2012, 11:39 p.m.
    City, State: Milford, NH
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: 50-150 acres
    Comment: Dear Charlie,

    I got some of my very first hands on farming experience at 
Rosaly's! I'm now a certified organic producer of milk and eggs in 
Bedford, NH, on town-owned land. As a beginning farmer, I need the 
support of programs like this to grow my business and enrich the 
communities of Southern NH with delicious, healthy local food. Thank 
you for the opportunity to submit testimony to the House Committee on 
Agriculture on the next farm bill. My district representative is being 
copied on this testimony. I am a young farmer and I'd like to share my 
support for programs that help the next generation of growers build 
strong farm businesses. As it's estimated that 125,000 farmers will 
retire in the next 5 years, it's absolutely critical that farm bill 
programs help citizens get started in this challenging field. I ask 
that the Committee endorse all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Melissa Blindow, Benedikt Dairy in Bedford, NH.
                                 ______
                                 
                      Comment of Charles D. Bliss
    Date Submitted: Tuesday, March 20, 2012, 10:09 a.m.
    City, State: Maquon, IL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: I have farmed for 56 years and know that we need a safety 
net to protect us from volatile income fluctuation. A good sound crop 
insurance plan is the best form of protection that we can have. Please 
work to include such a plan in the new farm bill. Thank You.
                                 ______
                                 
                       Comment of Lear Blitzstein
    Date Submitted: Friday, May 18, 2012, 10:19 p.m.
    City, State: Alameda, CA
    Occupation: Cook
    Comment: The government should not let mega-corporations dictate 
how organic food is labeled, nor should companies like Monsanto force 
small farmers into debt because ``their'' franken-foods contaminated 
nearby small farms--and then sue them for copyright infringement!
                                 ______
                                 
                      Comment of Laurel Blomquist
    Date Submitted: Friday, May 18, 2012, 7:39 p.m.
    City, State: Madison, WI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Please level the playing field for small producers, and 
take Organic Standards into consideration. Also, if you want to really 
do something about the obesity epidemic, you should subsidize 
vegetables, and not just products that make cheap (but unhealthy) food.
                                 ______
                                 
                         Comment of Larry Blood
    Date Submitted: Friday, May 18, 2012, 5:10 p.m.
    City, State: Santa Cruz, CA
    Occupation: Radio Producer
    Comment: Agribusiness has ruled the roost too long. The benefits of 
more local operations are multifold. Farmers markets, organic farming, 
family farms need to be better supported in the new farm bill.
                                 ______
                                 
                        Comment of Cheryl Bloom
    Date Submitted: Friday, May 18, 2012, 2:54 p.m.
    City, State: Little River, CA
    Occupation: Landscape Gardener
    Comment: We need a farm bill that supports the small, organic 
farmers who do not usually get subsidies from congress like big 
agribusiness producers have. It is very important to help and allow 
small farms to grow a large variety of foods that are sustainable for 
the health of our citizens, plants and animals. It is Not important to 
subsidize the negative, depleting, unhealthy and detrimental practices 
of large agriculture at the expense of the health of the land.
                                 ______
                                 
                        Comment of William Bloom
    Date Submitted: Saturday, May 19, 2012, 6:11 p.m.
    City, State: Lovettsville, VA
    Occupation: Director of Technology Services
    Comment: Dear Representative Frank Wolf,

    I need fresh local farm food for my health without government 
regulations preventing it. This is not just my choosing, but I have 
been directed by my doctor to go this way of life if I want to live a 
longer life after several bad health events have happened to me. Please 
support:

    (1) The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (4) Maintaining the EQIP Organic Initiative.

    We do not need the Government controlling farms, especially small 
local farmers who can barely make ends meet. If the government is 
concerned about health risks, just have the consumer sign a form with 
the local farmer that the consumer understands their may be health 
risks to locally grown farm products. The form is to be kept on file by 
the local farmer only. This is the most that government should get 
involved and even that I believe is too much and unnecessary. In this 
day and age of the Internet, the consumer has at their finger tips all 
the research available for them to make a wise decision. Also, if the 
government is really concerned about health and is willing to stand up 
against big companies like Monsanto, require manufacturers to label if 
the food in stores has been genetically modified (GMO).
    Thank you for your support of local farmers. As you know, Loudoun 
County has a lot of local farms still that want to help people like me.

Bill.
                                 ______
                                 
                       Comment of Jeffrey Blovits
    Date Submitted: Sunday, May 20, 2012, 5:15 p.m.
    City, State: Vancouver, WA
    Occupation: Retired--Engineering Program Mgr. (H-P)
    Comment: I have the fortunate opportunity as a regular volunteer 
for Oregon Food Bank, SHARE and Clark County Food Bank (four mornings 
weekly). Need for basic nutrition has only increased in the years I 
have been participating. Reductions in support are a misdirected and 
tragic error in leadership.
                                 ______
                                 
                       Comment of Elizabeth Blow
    Date Submitted: Saturday, May 19, 2012, 8:34 p.m.
    City, State: Rohnert Park, CA
    Occupation: Retired
    Comment: There is no reason why farmers and farms, (in particular 
small to medium sized), can't grow organic, nutritious crops void of 
genetically modified/engineered organisms (GMOs), and the pesticides & 
herbicides that accompany such unhealthy crops. I support local 
farmers/farms. Why don't you as my representative? I don't eat GMO 
crops do you? Let's reform now in favor of an organic agricultural 
paradigm shift!
                                 ______
                                 
                        Comment of Jared Blumer
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: Ambler, PA
    Occupation: Educator
    Comment: With oil prices on the rise accompanied by global food 
prices, a drastic shift towards local food production is essential. The 
encouragement of small organic farms through subsidies, farm lease 
programs, and farmer education can revitalize a stalled economy, reduce 
carbon emissions, and provide much needed jobs for Americans. The 
public is demanding local, fresh, and safe food and the government can 
support this growing market through the rational policies described 
above and the many others not mentioned. I look forward to hearing how 
the new farm bill will revitalize America's food system and lift us 
from this recession. Thank you for your consideration.
            Best,

Jared Blumer.
                                 ______
                                 
                       Comment of Megan Blyweiss
    Date Submitted: Friday, May 18, 2012, 12:18 p.m.
    City, State: Philadelphia, PA
    Occupation: Speech Language Pathologist
    Comment: Everyone deserves the right to organic, healthy produce--
free of chemicals that harm our bodies and change the way nature 
intended us to grow. More health problems, early puberty . . . all of 
this can be linked to poor food quality due to chemicals. Leave our 
produce safe!
                                 ______
                                 
                        Comment of Mark Bneolken
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Minneapolis,MN
    Comment: Organic farmers must have the same considerations as Big 
Ag. Farmers must be able to protect the integrity of their crops. They 
must also be protected from punitive lawsuits that occur because of 
seed or pollen floating on the wind. They want no part of Monsanto's 
GMO seeds. They don't want these frankenseeds polluting their efforts. 
A growing number of us (20% a year and growing) don't want to consume 
GMO products. Those need to be labeled by law so we can make informed 
decisions.

Mark Benolken.
                                 ______
                                 
                       Comment of Natalie Boatner
    Date Submitted: Friday, May 18, 2012, 1:01 p.m.
    City, State: Pittsburgh, PA
    Occupation: Line Cook
    Comment: The southwest PA region has so much to offer in the way of 
farming and bringing farm fresh foods to the population. This is truly 
one of the most beautiful, healthful and community-strengthening 
aspects of living here. Please do what you can to preserve and enhance 
our access to good farming. Thank you sincerely.

NKB.
                                 ______
                                 
                     Comment of Sarah Boaz-Shelley
    Date Submitted: Friday, May 18, 2012, 10:17 p.m.
    City, State: Walnut Creek, CA
    Occupation: Director of Engineering, E-commerce
    Comment: I support the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286).
    I support fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    Maintaining the EQIP Organic Initiative.
    I support a U.S. food and agricultural policy that focuses on 
adopting best agricultural practices that put the health of its 
citizens, the land and the livelihood of farmers and farm workers over 
the interests of industrial agriculture lobbyists.
                                 ______
                                 
                       Comment of Roxanne Bobick
    Date Submitted: Sunday, May 20, 2012, 4:58 p.m.
    City, State: Ripley, WV
    Occupation: Health Counselor
    Comment: We need a new farm bill! The current one has helped to 
create more obesity, heart disease, and diabetes for the public. Please 
craft a new bill that will help make healthy and organic foods more 
reasonably priced and accessible to the public. People deserve to be 
able to have good food and good health.
            Thank you,

Roxanne Bobick,
Certified Health Counselor.
                                 ______
                                 
                         Comment of Clare Bobo
    Date Submitted: Saturday, May 19, 2012, 8:04 p.m.
    City, State: Waikoloa, HI
    Occupation: Caterer, Leader of Slow Food Hawaii
    Comment: Aloha Mazie,

    Please help us move towards good, clean and fair food for everyone 
by ending subsidies to giant farms and garnering more support for our 
small local farmers. I urge you to support a farm bill that is more 
supportive of small family farms and helps move us away from CAFOs and 
other factory farms.
            Mahalo for all you do,

Clare Bobo.
                                 ______
                                 
                       Comment of Leona Bochantin
    Date Submitted: Friday, April 27, 2012, 6:35 p.m.
    City, State: St. Louis, MO
    Occupation: Retired
    Comment: We need to protect the poor and hungry. Small and organic 
farmers need subsidies. Get rid of subsidies for the large 
agribusinesses, they should not get subsidies. We need the conservation 
programs.
                                 ______
                                 
                         Comment of Mary Bodde
    Date Submitted: Friday, May 18, 2012, 2:47 p.m.
    City, State: Mt. St. Joseph, OH
    Occupation: Retired
    Comment: The Bill should include financial support for farmers who 
need it to successfully seed the crops that feed the Nation, e.g., in 
seeds or other assistance in order to help them carry out their role of 
feeding the Nation.
                                 ______
                                 
                        Comment of Catherine Boe
    Date Submitted: Saturday, May 19, 2012, 9:31 p.m.
    City, State: San Jose, CA
    Comment: I would like you to consider the future for those that 
have to take care of themselves--making just enough to pay to put food 
on the table and meet the most urgent needs of our children. I want to 
have the ability to buy real whole not chemically altered food at a 
grocery store that is affordable and grown sustainably. Make changes as 
if they are to benefit Your health not mine. Thank you.
                                 ______
                                 
                         Comment of Diana Boeke
    Date Submitted: Friday, May 18, 2012, 12:22 p.m.
    City, State: Culpeper, VA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: My husband and I make a full-time living from farming our 
5 acres in Virginia. We are a diversified farm with vegetables, small 
fruits, cut flowers, and pastured poultry. We have received invaluable 
assistance from state and Federal programs designed for small 
sustainable farmers like us. We are proud to be producers, and provide 
our community with nutritious, affordable, healthy food. We ask that 
you continue to support local small farmers by the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                      Comment of Robert Boettcher
    Date Submitted: Friday, May 18, 2012, 4:37 p.m.
    City, State: Big Sandy, MT
    Occupation: Retired Producer
    Comment: It is time for an Organic Farm Bill. Everyone in the U.S. 
would benefit from a fair and healthy farm bill. It is very frustrating 
that the large producers get so much money.
                                 ______
                                 
                       Comment of Jill Bohr Jacob
    Date Submitted: Friday, May 18, 2012, 7:03 p.m.
    City, State: Ketchikan, AK
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: To the House Agricultural Committee,

    A decade ago I helped my mother transition our family orange grove 
in California into organic production. For the first time in a 
generation it made a profit AND the soil healed and the surrounding bio 
diversity was not poisoned and my children could eat our oranges 
without scrubbing the toxic sprays off.
    Please support;

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

            Thank you,

Jill Bohr Jacob.
                                 ______
                                 
                        Comment of Samuel Boles
    Date Submitted: Thursday, May 10, 2012, 1:16 p.m.
    City, State: Atlanta, GA
    Occupation: IT
    Comment: Food stamps are important to the security of our citizens 
and to the ability of folks to get out of poverty. Don't try to build 
sustainability or fiscal responsibility on their backs and with the 
suffering of our weakest neighbors most in need of our protection.
                                 ______
                                 
                      Comment of Christy Bolognani
    Date Submitted: Saturday, May 19, 2012, 4:42 p.m.
    City, State: Buena Vista, CO
    Occupation: Medical Assistant
    Comment: Organic and sustainable agriculture are integral to the 
healthy survival of our food system in America. We must pass laws that 
protect these forms of farming from agribusiness corporations such as 
Monsanto. Please protect our health and family farmers with a fair 
Farms Bill that doesn't concede solely to the special interests of 
large corporations.
                                 ______
                                 
                          Comment of Mary Bolz
    Date Submitted: Friday, May 18, 2012, 3:29 p.m.
    City, State: Vacaville, CA
    Occupation: Oriental Medicine Doctor and Acupuncturist
    Comment: Sustainable and nonchemical farming is very important to 
the health of humans and animals and plants, and even the Earth itself. 
If you cannot see this, you will just be one of those Federal 
regulators bought off by big money. There are things more important 
than money and you Must take risks. Worrying about your reelection or 
reappointment is moot. Do something good for your country and Earth.
                                 ______
                                 
                        Comment of Victoria Bona
    Date Submitted: Friday, May 18, 2012, 1:59 p.m.
    City, State: Seattle, WA
    Occupation: Bookkeeping/Mother
    Comment: I want our legislature to support laws that protect every 
person in the United States by restricting GMO crops (and definitely 
NOT giving companies like Monsanto the right to sue small farmers whose 
heirloom seeds have been pollinated w/GMO DNA--something the farmer 
cannot control), by banning the use of pesticides/herbicides and 
chemical fertilizer, by supporting the innovation of Organic farming; 
by labeling requirements for what is in food and how it was produced 
(i.e., Label GMOs that are in food products), by removing corn from the 
diets of cattle and poultry, by scaling back on the mass production of 
corn (removing subsidies for corn farmers)--to name a few. I feel like 
legislators (with the exception of a few independent thinkers) rule in 
favor of big business (money) and throw the rest of us, and the health 
of the planet, under the train. Please consider the bigger picture of a 
healthy nation when you prepare the next farm bill.
    Thank you.
                                 ______
                                 
                       Comment of Elizabeth Bond
    Date Submitted: Friday, May 18, 2012, 11:56 p.m.
    City, State: Santa Ana, CA
    Occupation: Research Assistant
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I do not support cutting WIC or Food Stamp programs. I do not 
support Monsanto's interest in making all farmers buy and use their 
sterile hybrids. I am not against all GMO's (it would be great to 
modify rice to have a complete protein, for example) but see no harm in 
making growers label them with What has been modified, clearly stated.
                                 ______
                                 
                           Comment of S. Bond
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Naperville, IL
    Occupation: Technical Director
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Do not cut $4 million from the organic research funding nor the 
funding to support Beginning Farmers.
    Do not subsidize insurance programs, which will allow giant 
commodity farmers and insurance companies to walk away with billions in 
taxpayer dollars while putting the land, soil and environment at 
greater risk.
    Place limitations on crop insurance subsidies and re-attach soil 
erosion and wetland conservation requirements to crop insurance 
programs.
                                 ______
                                 
                       Comment of Michael Bonilla
    Date Submitted: Friday, May 18, 2012, 2:43 p.m.
    City, State: Fairbanks, AK
    Occupation: Carpet and Upholstery Cleaning
    Comment: This is a great opportunity to reform agriculture to be 
more healthy for Americans. There should be subsidies for organic and 
vegetable farming and reduction in soy and corn subsidies. There are 
very few healthy foods that come from corn and soy and by subsidizing 
them you are encouraging a more unhealthy and sickly America. Thank 
you.
                                 ______
                                 
                        Comment of Allen Bonini
    Date Submitted: Sunday, May 20, 2012, 10:18 a.m.
    City, State: Urbandale, IA
    Occupation: Resource Manager
    Comment: We need a strong conservation title in the farm bill and 
any farm payments or subsidies Must be linked to complete conservation 
compliance. This is especially true for crop insurance. If my tax 
dollars are going to subsidize 60% of the cost of crop insurance then 
farmers should be expected to operate in a sustainable manner and 
follow an approved conservation plan. No one should ever get a handout 
from government without some sort of quid pro quo. And farmers are no 
exception!
                                 ______
                                 
                         Comment of Angela Bonk
    Date Submitted: Friday, May 18, 2012, 4:15 p.m.
    City, State: Manitowoc, WI
    Occupation: Ladies Buyer
    Comment: Please consider the organic farmers and those of us that 
choose to eat wholesome, farm raised meat and dairy. We believe 
strongly in truth in labeling. We are firmly against GMO's. We need to 
know which farmers use Roundup Ready seed.
                                 ______
                                 
                        Comment of Patty Bonney
    Date Submitted: Wednesday, May 16, 2012, 12:06 a.m.
    City, State: Portland, OR
    Occupation: Retired
    Comment: Every year my daughter-in-law requests donations to the 
Oregon Food Bank for birthday and Christmas. As a school counselor she 
sees so many hungry children.
                                 ______
                                 
                      Comment of Andrea Bonsignore
    Date Submitted: Friday, May 18, 2012, 6:32 p.m.
    City, State: Castro Valley, CA
    Occupation: Student
    Comment: There should be strict guidelines regarding the production 
of genetically modified crops. With concern of the future of seed and 
our food source, authentic organically produced crops should be 
supported in this bill and genetically modified crops severely 
restricted. Please do a small amount of research as to the effects of 
genetically modified crops on biodiversity, the welfare of farmers, and 
the health effects seen thus far on animals and you will take this 
comment to heart.
                                 ______
                                 
                        Comment of Barbara Boone
    Date Submitted: Tuesday, May 15, 2012, 3:06 p.m.
    City, State: La Jolla, CA
    Occupation: Retired
    Comment: I believe we should emphasize teaching and encouraging 
people to grow as much of their own food, organically, as possible. 
This should be happening worldwide. This would help enrich the soil as 
well as teaching people to live responsibly and eating more 
nutritionally.
                                 ______
                                 
                        Comment of Malcolm Booth
    Date Submitted: Friday, May 18, 2012, 1:21 p.m.
    City, State: Sebastopol, CA
    Occupation: Businessman
    Comment: The current system of agriculture, and the provision of 
food in the U.S. is clearly broken and has been for decades. This is 
rapidly coming to the national consciousness and bottom up changes are 
happening all over the country despite what the government does. It's 
time to get on board and get the system fixed. The country badly needs 
affordable, local, healthy food and education on what to eat and how to 
grow it. The big corporations are only interested in one thing and the 
people have suffered as a result. Do right thing . . . please.

Malcolm Booth,
Sebastopol, CA.
                                 ______
                                 
                   Comment of Nicole Boothman-Shepard
    Date Submitted: Friday, May 18, 2012, 2:18 p.m.
    City, State: New Orleans, LA
    Occupation: Strategy Consultant for Fortune 500 Company
    Comment: I implore you to rebuff lobbyists and give us--the 
consumers--the power and access to choose healthy, local, organic foods 
for our families. I don't want GMOs in the food supply, but I have a 
right to know if they are there so I demand labeling.
    I want AG to have programs that actively encourage more local 
farmers to produce organic, no and low pesticide foods so it is fresh, 
healthy, supports the local economy, and actually tastes like food 
rather than Styrofoam.
    Subsidies and friendly policies for mega-farms have eviscerated the 
land, and more importantly, developed a national dependence on too few 
types and strains of plants and animals. As a subject matter expert on 
natural and man-made disasters, I am deeply worried about the food 
security crisis this limited bio-diversity has created. Engage DHS for 
a vulnerability and risk analysis--the results will be terrifying if 
disease or pests kills off the too few crops and strains that we grow 
now mass-produce.
    By supporting legislation that makes local and organic farming more 
achievable, we will resolve our food security risk while catalyzing 
local economies.
                                 ______
                                 
                         Comment of Martha Booz
    Date Submitted: Friday, May 11, 2012, 10:55 a.m.
    City, State: El Sobrante, CA
    Occupation: Home Gardener
    Comment: The farm bill should eliminate subsidies to industrial 
agriculture, ``big'' agriculture, and should implement policies that 
will encourage organic agriculture. Organic agriculture has been shown 
to be as productive as industrial agriculture, without the use of 
deadly pesticides and herbicides which don't work against the current 
crop of Super Weeds bedeviling farmers. Organic agriculture builds 
soil, and will eliminate the Dead Zone in the Gulf of Mexico if 
implemented fully across the U.S. Local farmers markets should be 
encouraged as well. Programs which benefit women with children should 
be continued and fully funded. Incentives should be offered to farmers 
of vegetables and fruits, which are healthy foods that fight obesity, 
another huge national problem facilitated and encouraged by subsidies 
to industrial agriculture.
    Thank you for your attention to my comments.
                                 ______
                                 
                     Comment of Margaret Bordagaray
    Date Submitted: Saturday, May 19, 2012, 10:55 p.m.
    City, State: Doylestown, PA
    Occupation: Therapeutic Bodyworker
    Comment: If you do not regulate and enforce labeling the food we 
purchase from stores you will force a lot of consumers to either start 
growing their own food or purchasing from local farmers whom we can 
trust. I expect as a job holding, taxpaying, and voting citizen to be 
aware and have the choice of what I am feeding myself and my family!
                                 ______
                                 
                        Comment of Nathan Border
    Date Submitted: Friday, May 18, 2012, 5:49 p.m.
    City, State: Thornton, CO
    Occupation: Registered Nurse
    Comment: We desperately need reform to sustainable and locally 
connected communities and food growers. Organic foods are the 
healthiest and safest food and we need national recognition and support 
for locally grown organic foods and agriculture.
                                 ______
                                 
                       Comment of Claudia Bordin
    Date Submitted: Friday, May 18, 2012, 6:13 p.m.
    City, State: Sacramento, CA
    Occupation: Designer
    Comment: Please make subsidies for growers of fruits and vegetables 
and not give subsidies to meat producers. This country desperately 
needs to eat more veggies and by having them more accessible and cost 
effective, more people will buy them. It will also help make our planet 
more sustainable by (cutting down meat production) lowering toxic gases 
to our environment that cattle produce. By having a healthier 
population, it can also lower our nation's health care costs.
                                 ______
                                 
                       Comment of Andrew Boreyko
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: Massapequa, NY
    Occupation: IT Programming/Systems
    Comment: Mr. King, I respect you and all that you have done, and 
continue to do. Please be pro-active and Do Not cut any funding to any 
programs vital to our nutrition, conservation and especially programs 
funding organic farming and agriculture.
                                 ______
                                 
                       Comment of Joe Borgerding
    Date Submitted: Sunday, May 20, 2012, 8:13 p.m.
    City, State: Belgrade, MN
    Producer/Non-producer: Producer
    Type: Dairy, Field Crops
    Size: 500-999 acres
    Comment: It is my hope that common sense and fairness come to the 
rescue of the dairy farmers who will be hurt by the proposed dairy 
legislation. The 3 percent that produces 50 percent of the milk, and 
thus the surplus, is being rewarded with the option of multiple 
opportunities to benefit from loop-holes, while getting unlimited 
margin insurance subsidies. ``Socialize the risk, privatize the 
reward'' is not the way to fix our broken, out-dated, milk pricing 
system, and it can-not work because it will rely on the same old price 
triggers that are not accurate enough, now. It does not even stop the 
U.S. from being the balancer for the world dairy market, as we will be 
expected to cut milk when program triggers are met.
                                 ______
                                 
                      Comment of Joyce Borgerding
    Date Submitted: Friday, May 18, 2012, 7:57 p.m.
    City, State: Spring Valley, WI
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 50-150 acres
    Comment: We are a small producer of direct marketed meat. Sometimes 
we have our hayfield in corn before replanting to alfalfa. Even when we 
don't grow corn, we have this corn acreage 'base' that we get a subsidy 
for! It seems crazy . . . the ag service calls us even though we say we 
have no reason to get money! They want us to do it. Lots of farmers get 
this money for doing nothing. This does not seems a good use of the ag 
monies. And others, big land owners do Not need the extra subsidy. 
Please spend the tax money wisely.
                                 ______
                                 
                       Comment of Raymond Borkton
    Date Submitted: Thursday, May 17, 2012, 5:07 p.m.
    City, State: Costa Mesa, CA
    Occupation: Controller
    Comment: I'd like the government to support the small sustainable 
farmers instead of the industry giants that are using GMO's and 
pesticides recklessly. Support labeling of all GMO's and require more 
independent testing of GMO's. Please limit the overuse of pesticides. 
Our bees are a direct result of all this industry abuse. Support the 
farmers, not the industry giants that keep greasing politicians pockets 
each year. Be respectful of your constituency and be honorable. Thanks.
                                 ______
                                 
                      Comment of Geraldine Borrell
    Date Submitted: Thursday, May 17, 2012, 2:25 p.m.
    City, State: New York, NY
    Occupation: Music Teacher
    Comment: Please make the farm bill one that:

  <bullet> supports farmers, not agribusiness;

  <bullet> creates jobs and spurs economic growth;

  <bullet> makes healthy food widely available, both financially and by 
        location, to all Americans;

  <bullet> protects our natural resources by ranking CSP applications 
        solely on their conservation benefits.

  <bullet> invests in the next generation of farmers and ranchers by 
        guaranteeing $25 million annually in mandatory funding for the 
        Beginning Farmer and Rancher Development Program.

  <bullet> drives innovation for tomorrow's farmers and food 
        entrepreneurs by supporting the Organic Agriculture Research 
        and Extension Initiative at $30 million per year in mandatory 
        funding.

    We need a better farm bill. Please make it happen now.
    Many thanks for representing me.
                                 ______
                                 
                    Comment of Michael Angelo Bosch
    Date Submitted: Wednesday, May 09, 2012, 11:08 p.m.
    City, State: Jersey City, NJ
    Comment: Please help secure those elderly in need folks who paved 
the way to America's future. Those who were our past leaders and 
teachers who help mold and build this country our Doctors lawyers 
police officers fire fighters our soldiers scientist etc., who are now 
in their prime and have fallen through hard times, many are going 
hungry and more needs to be done in this country to help those in need. 
Please help us help them.

    P.S. . . . and please get Mansanto's out of our farms. Thank you.
                                 ______
                                 
                        Comment of Pamela Bosch
    Date Submitted: Friday, May 18, 2012, 3:15 p.m.
    City, State: Bellingham, WA
    Occupation: Teacher
    Comment: Obscenely profitable junk food is destroying the vitality 
of our people. Profit for health is not a good trade off. Reward 
organic, small, local agriculture, not mass-manipulated craving. Give 
double food stamp values for organic produce--save health care expense 
and energy costs. Life through real food, not consumption for cold hard 
cash.
                                 ______
                                 
                     Comment of H. Adam Bosschieter
    Date Submitted: Saturday, May 19, 2012, 9:41 p.m.
    City, State: Sanger, CA
    Occupation: Developer, Biomass to Diesel Technology
    Comment: Support small farms and you support the ability for people 
to generate their own income.
    No need to wait for this elusive promise called a `job'.
                                 ______
                                 
                       Comment of Heather Bostian
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Flagstaff, AZ
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: The Monsanto poisoning has Got To Stop, just cause a few 
elite think they can get away with killing humans , plant & animal 
life. You all are Not God and karma will get you in the end. No more 
GMO, no more messing with what Nature provides perfectly! Get into 
alignment with yourselves, get into integrity not greed gratification 
for the moment. Your lives are pathetic.
                                 ______
                                 
                       Comment of Luke Botticello
    Date Submitted: Tuesday, April 24, 2012, 6:18 p.m.
    City, State: Lebanon, CT
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 50-150 acres
    Comment: I am a third generation dairy farmer who just started 
milking a small heard and am just barely staying afloat due to 
plummeting milk prices and skyrocketing fuel and feed prices. Please 
help us to make a fair market price that is in line with this trend. I 
love doing this as did the generations before me and want the fourth 
generation, my son, to be as proud and secure as this industry could be 
with your help.
            Thank you,

Luke Botticello.
                                 ______
                                 
                      Comment of Victoria Boucher
    Date Submitted: Friday, May 18, 2012, 9:54 p.m.
    City, State: Hyattsville, MD
    Occupation: Retired Librarian
    Comment: Perhaps my most imperative concern I have concerns the 
nation's health as it is revealed that hormones, antibiotics, genetic 
modification and other horrors are what one can expect from the food 
offered in supermarkets. I think that products from small farms are 
less likely to be tainted. Even were it not for health concerns, I am 
tired of seeing the survival of the greediest passing itself off as 
progress. I descend from decent well-educated small farmers and while a 
librarian I still love the land. I know that farming in the true sense 
ended with my grandparents and that now it's become just another 
irresponsible and heartless mega-industry. I would like to see a farm 
bill that favored small farms, and really regulated all farms, even 
those of large contributors to congressmen.
                                 ______
                                 
                     Comment of Dominique Bouillon
    Date Submitted: Sunday, May 20, 2012, 2:31 p.m.
    City, State: Brooklyn, NY
    Occupation: Community Outreach Coordinator
    Comment: I would like to see more of the Federal Budget designated 
to supporting healthy food in schools, Farmers' Markets in Food Deserts 
and supporting small organic farms. Federal funding of corn based 
products result in diet related illnesses that is costing people their 
lives and this country lots of money. I would like to see more funds 
invested in our schools, in our kids and in the environment. Industrial 
Farming practices are damaging the Earth. We need more organic farms, 
we need people being educated about food and people given the access to 
healthy food. Thank you for hearing my thoughts on this matter.
                                 ______
                                 
                      Comment of Katherine Boulay
    Date Submitted: Friday, May 11, 2012, 10:01 p.m.
    City, State: Oak Park, IL
    Occupation: Professor--University of Illinois--Chicago
    Comment: I volunteer every week at the Oak Park/River Forest Food 
Pantry. I have done so since the beginning of 2012. Each week I am 
stunned at the need in my community. I cannot tell you how many Working 
families, senior citizens, Veterans, and people with disabilities 
require our services. Last week a woman my age (45 years) came in. Not 
only did she not have earn enough from her job to feed herself and her 
two children but she was unable to spare any money to buy sanitary 
napkins. She wept with thanks that this was an item with which we were 
able to provide her. It is a shame that we must beg for money so that 
working members of our community can occasionally access the most basic 
of needs. Cutting SNAP would be criminal. It allows us to help people 
in our communities who have fallen on hard times. Please Do Not Cut 
Snap!
                                 ______
                                 
                        Comment of Paul Bourdon
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Southborough, MA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: As a small scale farmer, I understand the difficulties in 
making a farm profitable. I also understand that the industrial 
agricultural model while able to produce large quantities is also 
producing large amounts of highly processed food of very low benefit to 
the consumer and which is contributing to spiraling health costs. These 
industrial farms receive huge subsidies while very little goes to small 
farms. These subsidies to the producers of processed foods should be 
cut while increasing the support to small farms. Thank you.
                                 ______
                                 
                Joint Comment of Steve and Cynthia Bova
    Date Submitted: Friday, April 20, 2012, 10:02 a.m.
    City, State: Ocean Shores, WA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: We live on the coast in the state of Washington where 
Japanese eel grass has recently been classified as a class `c' weed. 
This allows for even more spraying of the chemicals imazapyr and 
glyphosate (Round-Up) on commercial shellfish beds to control this 
grass, along with spartina grass, which has been sprayed since 1996.
    A new chemical--imadicloprid--is being tested to replace carbaryl 
(SEVIN) for mud shrimp control on these same beds. SEVIN use started in 
1964 and, after 48 years, was outlawed in 2012, more than likely after 
scientists figured out the long-term effects.
    There are numerous independent university and research facility 
studies on the potential dangers of these chemicals to humans. ``The 
EPA, FDA and the Department of Health and Human Services (HHS) should 
immediately order more extensive and unbiased testing for all chemicals 
in these products--sprayed or otherwise--and, if appropriate, set 
consumption limits especially for pregnant women and children as they 
do on other many foods like freshwater fish and other seafood.''
    Please tell all your family members and friends of the potential 
dangers of eating chemical/water filtering GMO shellfish that have been 
exposed to these chemicals. Don't be the guinea pigs for the next new 
and improved poison.
    Whales are dying and autism is becoming epidemic. Could there be a 
connection?

Steve and Cynthia Bova.
                                 ______
                                 
                        Comment of Andrea Bowen
    Date Submitted: Wednesday, May 09, 2012, 3:31 p.m.
    City, State: Lawrence, KS
    Occupation: Volunteer
    Comment: We have a surplus of food to feed the poor and seniors 
that are having trouble, instead of having this food rot we should be 
using it to help our nation.
                                 ______
                                 
                         Comment of Laura Bowen
    Date Submitted: Friday, April 27, 2012, 6:46 p.m.
    City, State: Marion, IL
    Occupation: Service
    Comment: I know most of you there at Congress have never gone 
hungry, but imagine having three beautiful daughters . . . and one must 
go to bed hungry. I was that one that went to bed hungry several nights 
cause there wasn't enough for all of us to eat. No kid should go hungry 
for any reason. Keep TEFAP, SNAP, and all other programs going.
    The phrase ``No Child Left Behind'' should be applied to these 
programs as well.
                                 ______
                                 
                       Comment of Kathryn Bowers
    Date Submitted: Friday, May 18, 2012, 4:33 p.m.
    City, State: Estes Park, CO
    Occupation: College Professor
    Comment: It's time for the U.S. government to support small farms 
growing healthy foods for Americans, instead of huge agribusiness 
companies, whose main concern is profit over healthy products.
    The money that agribusiness pours into support for its friends in 
Congress should be an embarrassment to everyone involved.
    The health of our nation is at stake! If we think health care is 
costly, and we think that health issues, such as autism, are 
proliferating, then we need to ask some hard questions. What are we 
putting into our mouths that has not been properly tested and that is 
causing these abnormal issues? I'm not an expert, but my guess is that 
it's chemicals in our food that should not be in our food.
    I hope you will do the right thing for the American people and 
design a farm bill that will help lead Americans to healthier lives.
                                 ______
                                 
                        Comment of Sarah Bowler
    Date Submitted: Saturday, May 19, 2012, 10:59 a.m.
    City, State: Niwot, CO
    Occupation: Retired Teacher
    Comment: We have just moved and are carefully watching our 
representation in the House. Please support the full endorsement of 
H.R. 3286, fully funding conservation programs, and all other healthy 
food laws.
    While protecting our food seems a no brainer, it is personal for 
me. As a brain cancer survivor, my life literally depends on access to 
good, clean, organic food. Is this America, or what?
                                 ______
                                 
                        Comment of Andrew Bowman
    Date Submitted: Thursday, March 22, 2012, 8:25 p.m.
    City, State: Oneida, IL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: As a 25 year old producer, I am deeply concerned with the 
lack of long-term planning in Federal policies, including in many 
respects, the farm bill. Specifically, I urge the House Committee on 
Agriculture to focus on Agricultural Research. I have my own strong 
opinions on Crop Insurance (a valuable tool and the lessor of all evils 
when considering subsidies) and other components of the Commodity 
Title. But the Commodity Title is overblown when thinking about 
producers my age that have another 45 years in the industry--research 
now pays incredible long-term dividends. Studies show an internal rate 
of return (IRR) on agricultural research of 20-60% according to Dr. 
Robert Thompson, the former endowed chair for Agriculture Policy at the 
University of Illinois. Instead, I see too much worrying about short-
term programs--like the well-intentioned, though unhelpful SURE 
Program--rather than the long-term vision that American agriculture 
needs to remain at a comparative advantage to other global competitors. 
If we don't start increasing our investment in the future through 
research, then we are slowly allowing Brazil and other production 
centers to catch up to our level of competency . . . and eventually, 
overtake us.
                                 ______
                                 
                       Comment of Cecilia Bowman
    Date Submitted: Friday, May 18, 2012, 9:53 a.m.
    City, State: Clayton, IN
    Producer/Non-producer: Producer
    Type: Forestry, Fruits, Greenhouse/nursery, Nuts, Poultry/poultry 
products, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: As an organic farmer and previously and USDA and ISO 65 
accredited organic certifying agent, I ask that you:

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Program.

    I have worked in organic farming and certification since 1989. 
These programs are crucial to the growth and quality development of 
organic agriculture in the U.S. I urge you to support these programs.
    If you have any questions with regard to my experience with these 
programs I would be happy to speak with you. I have seen them in action 
from the farm, research and financial assistance level and O have 
worked with thousands of organic farmers over the years that start at 
the dawn of the Organic Foods Production Act.
    Thank you in advance for your consideration of this important 
issue.
            Best,

Cecilia Bowman,
Center Valley Organics.
                                 ______
                                 
                        Comments of Alice Bowron
    Date Submitted: Friday, May 18, 2012, 1:55 p.m.
    City, State: Minneapolis, MN
    Occupation: Retired
    Comment: I am a disabled person who had to retire early re: health 
problems. I am medically ordered to eat organic food due to sensitivity 
to certain chemicals as well as severe allergies to antibiotics. I 
deserve to be able to eat organic food--not food laced with 
antibiotics.
    Date Submitted: Friday, April 27, 2012, 9:22 a.m.
    Comment: I am sensitive to a lot of pesticides and other aspects of 
commercial farming; I am disabled and have been medically advised to 
eat only organic foods.
                                 ______
                                 
                       Comment of Polly Boyajian
    Date Submitted: Saturday, May 19, 2012, 7:35 p.m.
    City, State: Lacey, WA
    Occupation: Retired Social Service
    Comment: The huge agricultural industry is killing our bees, 
mistreating pigs, chickens and cows, endangering our health with 
hormones, pesticides and antibiotics.
                                 ______
                                 
                         Comment of Nancy Boyce
    Date Submitted: Friday, May 18, 2012, 2:23 p.m.
    City, State: San Rafael, CA
    Occupation: Health Care, Public Health Nurse
    Comment: It is time to get this right! The primary responsibility 
of this bill should be the health and welfare of the public, not the 
bottom line of corporations.
                                 ______
                                 
                         Comment of Allen Boyer
    Date Submitted: Friday, May 18, 2012, 1:50 p.m.
    City, State: Seattle, WA
    Occupation: Spiritual Poet
    Comment: Please get these demons to stop putting poison in 
everyone's food. I'm a vegetarian also and would like clear 
understanding of the ingredients in everything I by not these big words 
nobody even know what they mean. All these suppliers are selfish, money 
motivated, careless Demons.
                                 ______
                                 
                      Comment of Elizabeth Boylan
    Date Submitted: Friday, May 18, 2012, 1:01 p.m.
    City, State: Lexington, VA
    Occupation: Administrator
    Comment: The more I educate myself on this issue, the more I am 
afraid to buy anything in a grocery store! From inhumane treatment of 
animals, to chemicals and hormones in our meat and plants, to 
contamination, how do we even know what we are putting in our mouths?
                                 ______
                                 
                        Comment of Stephen Boyle
    Date Submitted: Friday, May 18, 2012, 10:54 p.m.
    City, State: Detroit, MI
    Occupation: Photographer and Website Developer
    Comment: As a health conscious consumer I worry about the food that 
is available to me. Some would say that if I worry about it so much 
that I should grow my own . . . I can't begin to take on growing 
everything I eat. If you stay away from the heavily commercialized 
crops you find that you can taste the impurities in them. The race to 
improve upon what the Earth provides has lead society into very 
frightful conditions. Government is willing to put excessive funding 
into existing large capital, heavily commercial farming. Those farms 
produce the lowest quality mass produced food. Small farmers need much 
more support, and they shouldn't be required to team up with big 
outfits, which demand them to sacrifice their quality crops for 
inferior quasi-foods and franken-foods. Patented seeds from everything 
I've read are simply big money keeping start-up business down. If you 
want to Grow Real Jobs, Subsidize Small Farms and stop allowing seed 
patents! Give the people their health instead of a medicated crop of 
bland produce.
                                 ______
                                 
                       Comment of Alanna Boynton
    Date Submitted: Saturday, May 19, 2012, 11:25 p.m.
    City, State: Seattle, WA
    Occupation: Research Dietitian
    Comment: As a nutrition professional, I believe that the next farm 
bill is an excellent opportunity to make the kinds of changes that we 
desperately need in order to ensure a healthier population. We all know 
what constitutes a healthy diet, and that fresh fruits and vegetables 
are of key importance, but unfortunately the food system is not set up 
to allow equal access to nutritious foods.
    I support:

  <bullet> Continued funding of nutrition and food assistance programs.

  <bullet> All provisions of the Local Foods, Farms and Jobs Act (H.R. 
        3286).

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Limiting funds to Concentrated Animal Feed Lots.

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> Restructuring agricultural subsidies to fund more farmers of 
        fruits and vegetables rather than focusing on commodity crops 
        such as corn and soybeans.

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

    Thank you for your consideration.

Alanna Boynton, M.S., R.D.
                                 ______
                                 
                        Comment of Kent Braathen
    Date Submitted: Friday, March 16, 2012, 3:43 p.m.
    City, State: Grand Forks, ND
    Occupation: Custom Grain Harvester
    Comment: There has never been a more important time for a farm bill 
than now. We need to be assured of a safe, bountiful food supply for 
the people of this country and abroad. We need to have a crop insurance 
program that meets the needs of all producers to insure we have 
producers in this country to help meet the needs of an increasing 
population worldwide. I don't think many people that live outside of 
the farming regions in the USA understand the importance of agriculture 
and a good stable farm bill that will provide a secure food supply. The 
assurance that we will have the producers here to put the food on the 
table is and should be a top priority.
            Thank you,

Kent Braathen,
VP U.S. Custom Harvesters, INC.
                                 ______
                                 
                    Comment of Denise Bracken-Hodge
    Date Submitted: Friday, April 27, 2012, 10:36 a.m.
    City, State: Columbia, MD
    Occupation: Retired
    Comment: I think in your bill, you should give farmers a big tax 
credit if they agree to donate a percentage of their crops to feeding 
America and local pantries. Most pantries give a lot of canned items 
that are loaded with a lot of sodium which is not good for America . . 

                                 ______
                                 
                       Comment of Wilma Bradbeer
    Date Submitted: Wednesday, May 09, 2012, 2:40 p.m.
    City, State: Charlottesville, VA
    Occupation: Retired Editor
    Comment: The new farm bill is crucial for the interests of the poor 
and the elderly, for the health of the land, and for the economy.
    In this time of economic hardship especially, it should retain full 
funding for the SNAP, TEFAP, and CSFP food programs.
    The huge subsidies of the past for wealthy producers of sugar, 
wheat, corn, cotton and soy should be greatly reduced or removed, and 
small farmers and organic farmers, who are excellent producers and have 
received. little help, should get more assistance.
    Large factory animal farms are hugely polluting of our waterways. 
Provisions should be in the farm bill to minimize this.
    Measures to protect land and waterways should be in the Bill.
                                 ______
                                 
                        Comment of Jaska Bradeen
    Date Submitted: Friday, May 18, 2012, 3:10 p.m.
    City, State: Brookfield, VT
    Occupation: Agricultural Worker, Homesteader, Entrepreneur
    Comment: Members of Congress,

    I know there is a lot at play in the creation of the farm bill. it 
is an unwieldy document, and the interests of many go into its 
creation. I would ask, as a citizen, constituent, and person involved 
in agriculture, that you do something huge this year:
    Think about the small farmers. Please. Please. I Know there is no 
money in it for the lobbyists who are pushing you. But Please, think 
about the truly small farmers. Please think about the young people, who 
want to get into farming, but cannot find the financial means to do so. 
Think about the implications of huge subsidies to corn etc. The dairy 
industry is Broken. Industrial-scale agriculture is Broken. We keep 
propping them up with American tax dollars, but to what end? Short-term 
gains for a very few? So what? What will that matter when it all starts 
to really crumble and we cannot feed our own citizens? Please, please, 
when you write this farm bill, Think About The Future of agriculture. 
Not the now, or the yesterday. Not the big ag lobbyists on your 
doorstep in DC, but the farmers with 2 acres or 2,000, or more, who are 
just trying to make ends meet. Think about the innovators who are going 
back to the future, trying to save a broken system. Think about your 
kids' kids food. Think about how much money we as a country waste on 
subsidies to huge corporations that DO NOT need it, while we let the 
little guys drown. Please, think about the future of this country.
                                 ______
                                 
                         Comment of Les Braden
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Madison, WI
    Occupation: Landscaper
    Comment: I'm very concerned about the influence agribusiness 
lobbies have over food policy and find myself very scared of what they 
want to sell me. I see all around me people suffering from mysterious 
ailments for which we have no remedy and I wonder how much the weakened 
nutritional value of our mass produced genetically altered foods have 
to do with that. We are not a nation that values high nutrition and 
that is a serious oversight. We are already sick from unknown causes 
and this will only get worse as Monsanto and other chemical 
corporations strengthen their stranglehold on our food chain. I buy 
less and less packaged food. I am growing more of my own from organic 
seeds that have to import. I just don't trust what's on the shelves of 
the grocery stores anymore. I also can't trust any of our food 
regulators because they all seem to be influenced by corporate lobbies 
that bias their actions in favor of their own profit agendas and not 
public health. It's time for us to wake up and take back control of our 
food manufacturing with real health I mind and not profitability.
                                 ______
                                 
                        Comment of Lynne Braden
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: Bartlett, IL
    Occupation: Project Manager
    Comment: Obesity and its related medical issues such as diabetes, 
heart disease, and cancer are out of control in America. If we are 
serious about reducing government expenditures on healthcare, we must 
also get serious about ending farm subsidies of large, corporate, toxic 
farm foods (such as corn, dairy, and livestock). If any foods must be 
subsidized, lets ensure that these are Only healthy alternatives (such 
as vegetables and fruits, or organic-only foods).
    Making vegetables, fruits, and organics more affordable for average 
Americans will provide healthier eating options which in turn will lead 
to reduced health care costs. This is overwhelmingly common sense!
    I urge you to put the health needs of Americans above the desires 
of the big Ag lobby and end the madness of our current farm bill once 
and for all.
            Thanks,

Lynne Braden.
                                 ______
                                 
                      Comment of Kathryn Bradford
    Date Submitted: Sunday, May 20, 2012, 6:36 a.m.
    City, State: Rockport, MA
    Occupation: Massage/Bodywork
    Comment: The large crop/commodities agribusiness has produced many 
ills. Please fully support the Local Farms, Food, and Jobs Act S. 1773, 
H.R. 3286. I would like to be a producer/have a family farm and retreat 
center in the not too distant future. This type of lifestyle can 
reconnect, establish a strong identity as stewards of the land.
            Thank you,

Kathryn.
                                 ______
                                 
                       Comment of Eileen Bradshaw
    Date Submitted: Tuesday, May 01, 2012, 2:06 p.m.
    City, State: Tulsa, OK
    Occupation: Director of Food Bank
    Comment: Please keep TEFAP distribution and SNAP funding levels at 
present levels or increased. Oklahomans' food insecurity and related 
problems are a deterrent to academic and work performance. This reduces 
attractiveness to prospective employers considering expansion in our 
state, and essentially weakens our whole state's economic performance. 
It is a small investment with a big potential gain, and it is the moral 
thing to do.
                                 ______
                                 
                         Comment of Susan Brady
    Date Submitted: Friday, May 18, 2012, 1:45 p.m.
    City, State: Aspen, CO
    Occupation: Wellbeing Counselor/Consultant
    Comment: The Roaring Fork Valley could be one of the leaders in 
organic and sustainable agriculture and this bill would be a step in 
the right direction for supporting a future which would be healthy for 
generations to come. Please support it!
                                 ______
                                 
                      Comment of Yasmin Brahmbhatt
    Date Submitted: Sunday, May 20, 2012, 1:00 p.m.
    City, State: Philadelphia, PA
    Occupation: Physician
    Comment: Please ensure that all organic farmers are supported in 
producing real organic produce and make these foods available to 
everyone at affordable prices. Please think of our people's health and 
wellness ahead of monetary gain. Please do not allow corporate 
businesses/farming companies (Monsanto) to produce non-labeled GM/
pesticide foods. Our future is in your hands. Do the right thing.
                                 ______
                                 
                          Comment of Amy Brain
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: Walnut Creek, CA
    Occupation: Retail Business Owner
    Comment: The Farm bill needs to start reflecting clean healthy food 
and support Organic farmers. The food that is being grown by large 
Agriculture is making me and my daughter ill. We cannot eat corn, 
wheat, soybeans.
    Whether it is the chemicals on the food, the genetic changes in the 
food, the big Ag foods make us sick.
    Please support healthy food.
                                 ______
                                 
                        Comment of Tim Brainerd
    Date Submitted: Friday, May 18, 2012, 1:33 p.m.
    City, State: Natick, MA
    Occupation: Retired
    Comment: Priority is food safety and nutrition, not large 
agribusiness profits. If anybody needs a subsidy, it is local, small, 
organic focused producers . . . not the web of interlocking farms with 
mega-ownership.
                                 ______
                                 
                         Comment of Angie Brake
    Date Submitted: Friday, May 18, 2012, 3:25 p.m.
    City, State: San Jose, CA
    Comment: Please don't cut funding for organic foods! We need 
organic is the healthiest thing out there. What you need to do is cut 
funding for Monsanto and eliminate them from the world. They are 
poisoning us and killing us slowly.
                                 ______
                                 
                        Comment of Doris Braley
    Date Submitted: Saturday, May 19, 2012, 2:17 p.m.
    City, State: New Brighton, MN
    Occupation: Retired Nurse
    Comment: I am buying organic food and grown local if I can and NO 
GMO's. Agribusiness, Monsanto and other companies are getting 
subsidies, sending products to developing countries stating they are 
going to feed the starving. I have seen what this has done in other 
countries where GMO seed has infested a farmers crops. Also why doesn't 
our media or conress acknowledge the research done in other countries? 
I guess only money talks if one is being brought off and the heck to 
the rest of us. So disappointed in our government and even our 
president whose spouse is promoting organic, better food and he is into 
free trade and corporations. I will not be alive to see what is 
happening with GMO's and I wonder if the CEO's of these corporations 
eat what they promote.
                                 ______
                                 
                       Comment of Anita Brandariz
    Date Submitted: Friday, May 18, 2012, 8:23 p.m.
    City, State: Brooklyn, NY
    Occupation: Retired Civil Servant
    Comment: Stop funding factory-farms/agribusinesses. They don't grow 
food they manufacture it in their labs. Save sustainable farms by 
funding them and not Cargill, Monsanto, ADM and all those other 
chemical corporations that don't give a damn about farming are only 
concerned about bottom lines. Anything to make more money no matter how 
much harm they do to humans and the planet. Don't support them, please.
                                 ______
                                 
                       Comment of Carissa Brands
    Date Submitted: Sunday, May 20, 2012, 12:17 p.m.
    City, State: Point Reyes Station, CA
    Occupation: Habitat Restoration
    Comment: I urge you to support and fund the Local Foods, Farms and 
Jobs Act, Beginning Farmer and Rancher Opportunity Act (H.R. 3236), 
maintain funding for conservation programs, especially the Conservation 
Stewardship Program.
    Keep subsidies for small-scale, organic and restoration/
conservation oriented agriculture practices and programs in the farm 
bill. Cut out subsidies for big agriculture lobbyists and practices 
that harm the health of people and land.
                                 ______
                                 
                         Comment of Emma Brandt
    Date Submitted: Wednesday, May 02, 2012, 2:46 p.m.
    City, State: Shaker Heights, OH
    Occupation: Student
    Comment: U.S. Farm Policy in the present and the future needs to 
focus on creating an agricultural system that can be sustained for the 
next 10, 20, 100 years--that is sustainable. The production and wider 
availability of fruits and vegetables--currently classified as 
``specialty crops''--should be emphasized, and time and money must be 
put not only into encouraging new and younger farmers (much of 
America's farmers are over age 65) but into encouraging them to farm in 
ways which, aside from any lovely thoughts about organic and local, are 
not destroying the ecosystems and communities they are a part of. 
Industrial agriculture is not working for America and the world; at 
least, it is not working in its present form. Farms should be prevented 
from leaching harmful substances into their local communities, as in 
the case of pig farms in North Carolina and manure and fumes, and must 
treat the soil in a way that allows it to keep producing crops. There 
is evidence that attempting to integrate the farms into the natural 
systems they are situated from (see: multi-functionality initiatives in 
Europe) is ultimately more productive and more economically feasible in 
the long run than trying to fight them. Shifting focus from meat and 
commodity crops to vegetables and fruits, which are more nutritious, 
will assist in this process, as will extending support to smaller farms 
and beginning farmers. The purpose of the farm bill has not changed 
much since it was instituted to respond to the needs of farmers after 
the Depression: a farm bill for the 21st century would address the 
issues we will face as we attempt to supply our country with food in 
the next century and beyond.
                                 ______
                                 
                       Comment of Kimberly Brandt
    Date Submitted: Saturday, May 19, 2012, 12:29 a.m.
    City, State: St. Helens, OR
    Comment: One need I see is to give farmer/producers tax credit when 
they donate crops/product to food banks to feed those in need. Until 
the economy truly recovers and people really get work we need to feed 
Americans. Food and shelter are real needs. Please give them credit for 
doing the right thing. Our government doesn't have the means to supply 
the food so why not work with them and give them a break for helping as 
you do for banks, auto industry, corporations, etc.
                                 ______
                                 
                        Comment of Nancy Brandt
    Date Submitted: Friday, May 18, 2012, 3:30 p.m.
    City, State: Chicago, IL
    Occupation: Retired
    Comment: I am just a consumer, but I care about our farms and 
farmers. I urge you to use the savings from no more direct subsidies to 
promote sustainable farms and local food--not use it for subsidizing 
insurance mostly for big farms or agribusiness. This is your 
opportunity to do something really great and bold. Surprise us!
                                 ______
                                 
                      Comment of Jeanne Brannigan
    Date Submitted: Friday, May 18, 2012, 4:42 p.m.
    City, State: Orland Park, IL
    Occupation: Retired
    Comment: The ag industry needs real reform. Our food quality has 
deteriorated to the point where health conscious people have to work 
far too hard at finding food that is worth eating (such as organic). 
Let's get back to nature and good farming practices of old.
                                 ______
                                 
                        Comment of Mike Brannin
    Date Submitted: Friday, May 18, 2012, 5:52 p.m.
    City, State: Orlando, FL
    Occupation: Retired School Counselor
    Comment: We need a farm bill that allows independent and organic 
farmers as much consideration as the mega ag producers. We also need a 
bill that allows the consumer the ability to choose if they want 
organic and chemical free poultry, meat and produce.
                                 ______
                                 
                       Comment of Tami Bransford
    Date Submitted: Wednesday, May 09, 2012, 2:33 p.m.
    City, State: Jacksonville, FL
    Occupation: Paralegal/Business Owner
    Comment: Working in my profession I see a lot of elderly without 
the funds to buy food and having to seek out food donations because 
their income is limited and medical and medicine costs are 
overwhelming. I had a family member pass away untimely due to his 
inability to afford his blood pressure meds. A client that received 
only $6 a month in food stamps and depended on her church for food 
because her medicine costs exceeded $200 a month. No American should 
live in such a way . . . what's wrong with taking care of our own? We 
seem to be too wrapped up in taking care of other countries problems 
and we ignore the ones right under our nose in our own country. It's a 
shame.
                                 ______
                                 
                        Comment of Lynn Brantley
    Date Submitted: Wednesday, March 28, 2012, 6:11 p.m.
    City, State: Glenn Dale, MD
    Occupation: President & CEO
    Comment: I have worked on hunger issues here in the Washington, 
D.C. community for over 43 years. I have never seen a time of such 
overwhelming need as now. The farm bill has far reaching consequences 
for farm families, for people who suffer hunger, cities, for 
agribusiness and for the economy in general. I hope that congress 
understands that this is a time to remember who we are as a people and 
nation. We must remember our faith traditions, and that to feed the 
hungry is at the very core and fabric of our being. Please do not cut 
food and nutrition programs that help people feed their families and to 
maintain a degree of sanity as they struggle to survive this economy 
that has striped and eviscerated their souls of the very things that it 
takes to maintain and keep a family healthy and hopeful. Bread is the 
very essence of life, the ag bill and the nutrition programs are 
central to survival. When we speak of family values there is no greater 
value than that of being able to feed ones family. I pray that congress 
understands the gravity of the situation that so many good, hardworking 
people in this nation are facing. Come walk in their shoes to 
understand. I pray that you will vote in a way that is in keeping with 
who we are as a nation! So that all may eat, food is a gift to us all, 
our own humanity is determined by how we respond.
                                 ______
                                 
                      Comment of Katherine Bratton
    Date Submitted: Friday, May 18, 2012, 1:27 p.m.
    City, State: La Crescenta, CA
    Occupation: Law Firm Administrator
    Comment: As a consumer, I am very much concerned about protecting 
small farms as well as producing food free from pesticides and 
antibiotics. We rely on the government to control monopolies and 
quality and appreciate all you can do to ensure healthy competition and 
food products. Thank you.
                                 ______
                                 
                         Comment of Joan Braun
    Date Submitted: Friday, May 18, 2012, 12:49 p.m.
    City, State: Weld, ME
    Occupation: Psychotherapist, Mom, Grandmother
    Comment: I want food grown without pesticides. I want non-organic 
pesticides banned.
    I do not want GMO foods grown anyplace in the United States or 
shipped anyplace in the world.
    I want to know that my food is organic and safe
    I want any GMO foods clearly labeled.
    I don't want any subsidies for big agriculture.
    I want sustainable agriculture that does not overuse or harm the 
soil it's grown on.
    I want no impediments put in the way of small farms, or rules that 
make the cost of meeting them prohibitive.
    I want small farmers to be able to sell their food locally without 
elaborate requirements. The buyer knows the farmer and the product and 
can take care of himself/herself.
    The same with the sale of raw milk. Let the consumer make the 
decision about whether to consume it or not.
    Thank you. I am your employer, Agriculture Committee. My taxes pay 
your salary. Please start listening to us.
                                 ______
                                 
                          Comment of K. Braun
    Date Submitted: Friday, May 18, 2012, 9:51 a.m.
    City, State: Great Cacapon, WV
    Occupation: Middle-Class Worker
    Comment: If you truly represent the public, you must give equal 
footing in All Legislation to practitioners of organic and sustainable 
farming methods--including the small family farmer, the icon of 
American ingenuity and entrepreneurism--which we want to see continue 
and Thrive in reality--not just as an archaic and quaint caricature 
that our children's children will never see. This lies in your hands. 
The Earth provides a perfect example of continuation--which the human 
race would do well to embrace and emulate.
                                 ______
                                 
                        Comment of Stephan Braun
    Date Submitted: Friday, May 18, 2012, 2:37 p.m.
    City, State: Decatur, GA
    Occupation: Executive Chef
    Comment: We need the Variety from the local small Farmers to feed 
and educate your guest, Children and future generations to come. If we 
leave this to big corporations, big money and GMOs, that will be the 
end, they look only out for their profit and the shareholders. If we 
lose the small farms and the support their off, we lose a choice, we 
lose a part of the future, we lose sustainable growth. Small family 
farms. If we give up the easy what will they take from us next, 
everything needs to be conform, run by a few, big money to be made for 
a few. What will they eat, chew on their dollars or looking for real 
food. What will happen with the next generations to come, our children, 
climate change.
                                 ______
                                 
                         Comment of Jim Brauner
    Date Submitted: Friday, May 18, 2012, 2:16 p.m.
    City, State: Ballwin, MO
    Occupation: Business Owner
    Comment: It is imperative that we stop catering to agribusiness 
profit desires but rather to what is good for 'The People' and the 
farmers/producers. Enough is Enough!
                                 ______
                                 
                     Comment of Kolya Braun-Greiner
    Date Submitted: Tuesday, May 15, 2012, 5:26 p.m.
    City, State: Takoma Park, MD
    Comment: I am concerned about the future of farming in our nation. 
We need farm policies that promote greater soil conservation, 
sustainable farming practices, and organic methods to preserve health 
and food producing capacity for future generations.
                                 ______
                                 
                     Comment of Jennifer Braverman
    Date Submitted: Thursday, May 17, 2012, 4:12 p.m.
    City, State: Syria, VA
    Occupation: Part-Time Paralegal
    Comment: We need fresh, local foods for our nation to be healthy. 
Low or No spray foods are better for our children, and will help save 
the bee population. We need to keep our roots with the soil, which is 
LIFE. Training new farmers and making it a viable profession is very 
important to our nation.
                                 ______
                                 
                       Comment of Denise Brazell
    Date Submitted: Friday, May 18, 2012, 1:05 p.m.
    City, State: Wilmington, DE
    Occupation: Access Coordinator Davidson School
    Comment: I meet people on a weekly basis who are very interested in 
what they eat. We want to know how and where the food was grown, and we 
also want to know that the food is not laden with potentially harmful 
chemicals. Knowing that there are farmers who want to grown organic 
foods makes us hopeful that we can enjoy quality foods that benefit our 
health . . . we should have that choice. Do not interfere with their 
efforts to produce the kind of food that I and others want available to 
purchase.
                                 ______
                                 
                       Comment of Allison Brazil
    Date Submitted: Saturday, May 19, 2012, 11:47 a.m.
    City, State: Olalla, WA
    Occupation: Technical Professional and Hobby Farmer
    Comment: I do not want to consume pesticides or genetically 
modified food. I do not want to plant GMO seeds that have been created 
to withstand pesticides such as Round Up--do I want to eat fruits or 
vegetables that come from plants that have been doused with Round Up--I 
don't think so. We need to stop subsidizing corn, soybeans and wheat. 
These are the highest allergen foods. I won't buy dog food with those 
ingredients so why would I want to eat them. I don't want to eat corn 
fed beef. There needs to be land set aside for organic farming and non 
GMO seeds available to small farms. When possible my family buys 
organic and during the summer we eat what we grow.
                                 ______
                                 
                       Comment of Robert Breeden
    Date Submitted: Friday, May 18, 2012, 2:33 p.m.
    City, State: Philadelphia, PA
    Occupation: Retired Federal Employee
    Comment: The view that small farmers using organic methods will 
become increasingly vital over the next 2 decades, as factory farming 
with terrifying chemicals produce Frankenfruits and Veggies at great 
cost to the environment and our health, is gaining more and more 
acceptance. Indeed, such large farms may, in the not-too-distant 
future, no longer be viable, as the consequences of Peak Oil set in, 
making transportation of products to distant cities cost-prohibitive. 
Local, organic farming may be the only way to feed our people. This is 
not the time to cut funding to what may be our lifeline.
                                 ______
                                 
                         Comment of April Brees
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: Tacoma, WA
    Occupation: Teacher
    Comment: Cutting funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture is not 
in the best interest of America. We used to be a nation proud of its 
products and producers, now moms are scared of what we're forcing into 
their children's lunches and subsidies to big agro have killed the 
small farmer. Where is the integrity?
                                 ______
                                 
                       Comment of Nadine Breneman
    Date Submitted: Friday, March 16, 2012, 1:25 p.m.
    City, State: Stockton, CA
    Occupation: Secretary
    Comment: I ask you endorse a very strong FARM BILL that will 
support those groups feeding the hungry. We cannot sit by and not do 
everything possible to feed our own. We owe it to our citizens to cover 
their needs. Let our eyes and hearts be as open to our population as to 
the rest of the world. Too many Americans are hungry every day. Far Too 
Many Children Are Going Without Food!
                                 ______
                                 
                         Comment of Don Brennan
    Date Submitted: Sunday, May 20, 2012, 11:16 a.m.
    City, State: Roan Mountain, TN
    Occupation: Retired
    Comment: I am not a weed to be poisoned by roundup resistant 
produce or a commodity for the profits of agribusiness. I am trying 
hard to grow organic non GMO food for my family--we are what we eat--
our gov. should be helping us grow local healthy food for the people, 
not shareholder profits.
                                 ______
                                 
                        Comment of Rick Brenner
    Date Submitted: Friday, May 18, 2012, 1:46 p.m.
    City, State: Jamul, CA
    Occupation: Accounting
    Comment: Hi,

    Please take these comments into account when considering the farm 
policy in the USA.
    The first thing I'm stunned about is how anyone can argue 
rationally that the public shouldn't be allowed to know what they are 
eating! It's beyond comprehension that our government could support the 
non-labeling of GMO foods for example. What could possibly be the 
rationale behind that besides being bribed by Monsanto, etc.?
    Also, I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

            Thank you,

Rick.
                                 ______
                                 
                       Comment of Judith Brennick
    Date Submitted: Friday, May 18, 2012, 4:37 p.m.
    City, State: Weymouth, MA
    Occupation: Registered Nurse
    Comment: Please Consider this bill. Allergies have increased in our 
children; cancer is on the rise. We fill our food with chemicals, etc; 
and don't seem to have the power to stop Monsanto and others from 
taking over the food supply. Be very afraid of Round Up. We are 
destroying the Earth with our chemicals. We want expediency and instant 
gratification with no concern what it is doing to our environment, not 
to mind ourselves. Help keep this world be a little safer for your 
grandchildren--be a part of leaving them a safe legacy! Thank you!
                                 ______
                                 
                         Comment of L. Bresnan
    Date Submitted: Sunday, May 20, 2012, 1:57 p.m.
    City, State: Ballwin, MO
    Occupation: Teacher
    Comment: Please vote for us and our children as the future of the 
U.S. After years of vague illnesses misdiagnosed as hypoglycemia, 
migraines, insomnia, possible early fibromyalgia and more and one child 
with memory issues, the other ADD, we all turned out being poisoned by 
heavy metals and reactions to chemical exposure despite no typical or 
obvious environmental exposures. We are recovering, but have lost much 
in the interim. Ensuring our food supply is handled well, testing 
chemicals that are used for food Before they are allowed on the fields 
or in production and that the water and land that crosses our food's 
path is essential.
    Therefore I plead with you to support:

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Maintaining the EQIP Organic Initiative.

    Our futures are directly tied to your vote. We rely on you. Thank 
you.
                                 ______
                                 
                      Comment of Jeannine Bressie
    Date Submitted: Friday, May 18, 2012, 5:28 p.m.
    City, State: Santa Rosa, CA
    Occupation: Retired
    Comment: Please stop rewarding the worst polluters in the country, 
the agribusiness multimillionaire Monsanto friendly producers of the 
worst garbage on the planet. There are responsible farmers who are good 
stewards of the land, who are struggling, while you continue to reward 
those who do the opposite. Reward the small family farmer who raises 
food sustainably, and Responsibly.
                                 ______
                                 
                       Comment of Alexis Bressler
    Date Submitted: Wednesday, May 16, 2012, 12:00 p.m.
    City, State: Blacksburg, VA
    Occupation: VISTA Volunteer--Hunger Relief in the New River Valley
    Comment: I believe that Americans need a farm bill that ensures 
that all citizens have access to fresh, healthy produce. This includes 
the preservation of current Federal food assistance programs or the 
development of new programs that a more locally based. If current food 
assistance programs are to undergo budget cuts then funding should be 
reallocated to support locally based agencies that meet the needs of 
food insecure individuals in their communities.
                                 ______
                                 
                         Comment of Nina Breton
    Date Submitted: Wednesday, May 16, 2012, 9:04 p.m.
    City, State: Beaverton, OR
    Occupation: Teacher
    Comment: I am looking for healthy food. I would like to see a farm 
bill that supports variety in production. Our produce has less 
nutrients in it now compared with several decades ago. I am interested 
in a bill that supports sustainable practices to restore nutrition.
                                 ______
                                 
                       Comment of Marcie Brewster
    Date Submitted: Sunday, May 20, 2012, 3:06 p.m.
    City, State: Huntsville, AR
    Producer/Non-producer: Producer
    Type: Fruits, Greenhouse/nursery, Poultry/poultry products, 
Specialty Crops, Vegetables, Other
    Size: Less than 50 acres
    Comment: Please find a way to support a diversified, sustainable 
farming approach. Please also look for ways to support small, organic/
sustainable farms that grow fruits and vegetables. Right now it costs 
more to eat healthy foods like vegetables and fruits than it does to 
eat unhealthy ones like chips and sugary snacks. We should be looking 
for ways to make healthy food more affordable. Large, concentrated food 
production systems such as we have today, are more susceptible to 
contamination. We need more small farms spread out around the nation. 
There are plenty of people who would like to be farming if it were 
economically more viable. Additionally a more broad based agricultural 
system would make for a more secure food system for our country.
                                 ______
                                 
                        Comment of Roger Briand
    Date Submitted: Saturday, May 19, 2012, 11:53 a.m.
    City, State: Eugene, OR
    Occupation: Self-Employed/Business
    Comment: We'd like to see far more tax dollars going to subsidize 
the farmers who are committed to organic growing. We know the 
corruption of our laws helps the chemical companies because they give 
huge amounts of money to our politicians.
    Our legislators, with few exceptions are driven by the money that 
has corrupted our system via the organized criminals who brought us 
Citizens United. Let's start with all getting together to rescue our 
democracy by taxing the ultra-wealthy corporation/banks so they don't 
have so much money to corrupt our laws. Down with Citizens United!
                                 ______
                                 
                         Comment of Ella Brians
    Date Submitted: Saturday, May 19, 2012, 3:43 p.m.
    City, State: Princeton, NY
    Occupation: Ph.D. Student
    Comment: A safe, sustainable farm plan is essential to our food 
security. Small, family farmers have led the way here, while large 
scale monoculture farming strips the soil and leads to a vicious cycle 
of pesticide resistance, run off and erosion.
    Supporting local farms by cutting subsidies to agribusiness, 
creating flexible inspection procedures and helping farmers stay on--or 
start--small farms is good for farmers, good for the economy, good for 
the environment, and good for consumers.
                                 ______
                                 
                      Comment of Adrienne Brietzke
    Date Submitted: Friday, May 18, 2012, 5:14 p.m.
    City, State: North Little Rock, AR
    Occupation: Public Affairs and Community Relations
    Comment: While congressional Republicans refuse to consider raising 
the taxes of the 1% to match my percentage--nearly 30% while they pay 
15-17%, and congress stonewalls about getting rid of big oil 
subsidies--to the tune of $11 Billion--people in the United States Go 
Hungry--and frequently don't know where or if the next meal is going to 
come. How Can Congress Allow This State Of Affairs? Big Oil is making 
historic profits--note: profits are what they get After they invest in 
research and development--so the excuse of ``higher costs involved in 
harder to recover and refine oil products'' doesn't justify starving 
citizens in our great country, while adding more pork for those who 
don't need it.
                                 ______
                                 
                        Comment of Cathy Brigham
    Date Submitted: Saturday, May 19, 2012, 9:41 a.m.
    City, State: Chardon, OH
    Occupation: Insurance Adjuster
    Comment: I think the health of our nation depends on a sound food 
policy. The public needs to have confidence in the safety of its food 
supply. The farm bill needs to protect family farms, local versus 
corporate production. It is no coincidence that the rise in chronic 
disease can be traced back to the beginnings of a food policy based on 
industrial farming. Please consider the well being of the consumer, the 
farmer, the animals and the land as you write the new farm bill. 
Corporations are Not people and do Not deserve the same consideration, 
which comes at the expense of public well-being.
                                 ______
                                 
                       Comment of Daniel Brigham
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: Houston, TX
    Occupation: Consultant
    Comment: Here are a few items that I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> Something To Give Me The Option To Avoid Consuming Any 
        Genetically Modified Foods.

  <bullet> Legal Recourse For Organic Farmers Whose Crops Are 
        Contaminated By Unsafe, Untested Genetically Modified Foods!
                                 ______
                                 
  Submitted Letter by Gail Brill, Founding Director, Adirondack Green 
                                 Circle
Date: March 7, 2012

To: Hon. Frank D. Lucas,
  Chairman,
  House Committee on Agriculture,
  Washington, D.C.

From: Adirondack Green Circle, Saranac Lake, NY 
            (www.adkgreencircle.org) a project of Adirondack 
            Sustainable Communities, Inc. (www.adksc.org) Gail Brill, 
            Founding Director

Re: 2012 U.S. Farm Bill

    Dear Representative Lucas,

    The Adirondack Green Circle urges our government to promote policy 
that supports small, rural farmers.

    Small farms provide fresh, local, ecologically grown food.

    Americans increasingly seek fresh, local, ecologically grown food. 
This is evident by the growth of farmers' markets and consumer demands 
on supermarkets for both local and organic products. According to the 
National Restaurant Association, 2012 marks the fourth year running 
that ``locally sourced food'' is chief among the top food trends.
    Here in the northern-most rural area of New York State, prices for 
fresh local food are much higher than prices for similar food in the 
supermarket That is the case because consumers are paying the full 
price of locally grown food, rather than paying for supermarket food 
that has been heavily subsidized by the government. One result of this 
is that many people who desire fresh local food simply cannot afford 
it. A second result is that farmers struggle to stay in business. But 
according to U.S. Agricultural Census data, more than 60 percent of 
U.S. small family farmers don't even qualify to receive Federal 
subsidies under current agricultural policy in our country.\1\ Instead, 
this nation's farm policy favors agribusiness and industrial farming.
---------------------------------------------------------------------------
    \1\ http//www.organicconsumers.com/ofgu/subsidies.htm.
---------------------------------------------------------------------------
    We have willing young farmers here in the North Country of New York 
who have demonstrated their passion, season after season, to make a go 
of farming. Of these numerous small farms, more than 30 offer 
community-supported agriculture. As this movement to eat fresh local 
food (rather than food that has been shipped long distances at great 
energy costs) grows, we look to the government to help our local 
farmers and our local consumers by creating policy which supports our 
small farms, instead of favoring large-scale commodity farmers. 
According to the Environmental Working Group, only $100 million 
taxpayer dollars each year are earmarked to support the increase in 
local food production, distribution, and consumption as compared to 
nearly $12 billion in annual subsidies awarded to large scale, 
agribusiness and industrial production of commodity crops. As the 
United States faces unprecedented crises on the front lines of both the 
national economy and fight against obesity and diet-related illnesses, 
now is the time for our government to support and embrace the growth 
and harvest of whole, real food, instead of subsidizing and encouraging 
the large scale farming of commodities that are used heavily in 
processed food.

    It is more cost effective to provide healthy, local, ecologically 
grown food than pay health care costs.

    We cannot deny the negative effects of government subsidies to 
large commodity crops. The incidence of obesity and subsequently 
diabetes in our population is growing at an alarming rate. Obesity 
threatens the health of Americans and increases the cost of health care 
enormously. A recent study revealed that the average American has 
gained 16.3 pounds during the 21 years between 1988-2008, resulting in 
an average weight gain of 0.77 pounds annually.\2\ Obesity has become a 
huge problem in the United States with over \1/4\ of the population 
categorized as obese, and a major cause of obesity is the availability 
of inexpensive (in price per calorie) heavily processed foods, 
especially snack food. Almost without exception these foods contain 
sugar, and often high fructose corn syrup, commodities that are heavily 
subsidized by the government.
---------------------------------------------------------------------------
    \2\ ``Evaluating Advertising Strategies for Fruits and Vegetables 
and the Implications for Obesity in the United States'', Jura 
Liaukonyte, Bradley J. Rickard, and Harry M. Kaiser, Dyson School, 
Cornell University and Timothy J. Richards Morrison School of 
Agribusiness, Arizona State University.
---------------------------------------------------------------------------
    Dietary change is a major way to begin to limit the obesity 
epidemic. It is certainly more cost effective for our government to 
support small farms that can deliver fresh, ecologically grown food, 
than it is to pay for health care associated with obesity and diabetes. 
Consuming local, ecologically grown food brings known health benefits 
that include: (1) higher levels of beneficial nutrients, like 
antioxidants, in local organic produce and (2) a different and 
healthier fat composition in organic meat from pastured animals.\3\ 
Locally grown food also promotes food safety and serves to lessen 
contamination issues, since it meets with fewer chances for adverse 
conditions and spoilage along its path from farm to table, than its 
average grocery store counterpart.
---------------------------------------------------------------------------
    \3\ The Omnivore's Dilemma, Michael Pollan, The Penguin Press, NY, 
2006.

---------------------------------------------------------------------------
    Locally grown food saves energy.

    The fossil fuel consumption resulting from shipping, trucking, and 
flying food cannot be underestimated. Local foods travel short 
distances to get to consumers. This reduces the energy transportation 
costs of our food supply, and conserves fossil fuel. Also, farms that 
use ecological growing practices are unlikely to use nitrogen 
fertilizers, thus decreasing the use of fossil fuels needed to produce 
them, and also decreasing release of nitrous oxide, a powerful 
greenhouse gas.

    Small Farms = Jobs, Economic Revitalization, and Community Growth.

    Small farms can and do result in thriving local business 
revitalization and the economic growth of communities both big and 
small. A successful farm in New York State has many a willing and ready 
customer, and our state ranks second nationwide for the number of 
farmers' markets.\4\ The Farmers Market industry in New York State is a 
vibrant and rapidly growing industry that encourages local business 
growth, economic development, and tourism. Local markets serve to make 
the town or village center where the market is held a destination 
attraction. Add live music, artisan festivals or theater performances 
to these market events, and this factor grows exponentially. The 
spillover from these markets effectively increases tourism, adding tax 
revenue and job growth to communities, and the residual beneficial 
effects of the community building atmosphere of a Farmers Market are 
without measure.
---------------------------------------------------------------------------
    \4\ http://www.nyfarmersmarket.com/resources/faqs.html.
---------------------------------------------------------------------------
    But the economic growth which the local food movement brings is not 
limited to small, rural areas. Consider that in the midst of our 
recession-era economic climate, the $4.8 billion sales of local food 
nationwide in 2008 were predicted by the USDA to reach $7 billion 
during 2011 \5\--a growth figure unmatched in most other economic 
sectors in recent years. Farms can drive a local economy; not only do 
small farmers bring a product to local markets, they create job growth 
for farm workers who in turn purchase products, equipment, and services 
in their communities. It is clear that growing food and promoting its 
local distribution and access is an American investment in America that 
truly generates dollars.
---------------------------------------------------------------------------
    \5\ http://www.ams.usda.gov/AMSv1.0/
getfile?dDocName=STELPRDC5070995.

---------------------------------------------------------------------------
    Now is the time to create good farm policy in the 2012 Farm Bill.

    Real change can happen for the scaling up of local food economies 
in our nation by the support of policy reforms outlined in the Local 
Farms, Food and Jobs Bill, introduced by Rep. Chellie Pingree (D-Maine) 
and Senator Sherrod Brown (D-Ohio) and cosponsored by 63 
representatives in the House and nine in the Senate. This bill aims to 
connect economic interests of small-scale farmers and ranchers with the 
ever-rising consumer demand for accessible and affordable local 
ecologically grown food amid what is currently a highly decentralized 
local food system. New policy proposed by the Local Farms, Food and 
Jobs bill will allow for increased aggregation and distribution of 
these fresh products, making it easier for locally grown and raised 
food to reach not only household consumers and restaurants, but the 
populations served by schools and hospitals while increasing access to 
such food for low-income senior citizens and food stamp recipients. 
Increased financial support for the Specialty Crop Block Grant program 
will enhance access for small farms to affordable credit, appropriate 
crop insurance, and other vital economic supports for smaller scale and 
beginning farmers. The cost of these programs is in the millions--only 
a fraction of the $18 billion in tax dollars annually which is now 
funneled to those large-scale farms currently reaping the lion's share 
of the today's farm subsidies.\6\ Also poised to make a difference is 
the Beginning Farmer and Rancher Opportunity Act of 2011--introduced 
with bipartisan support of 18 cosponsors and referred to the House 
Committee on Agriculture in October--which promotes USDA programs, 
trainings, competitive grants and micro-lending programs to beginning 
farmers.
---------------------------------------------------------------------------
    \6\ http://grist.org/farm-bill/2011-10-24-will-lawmakers-rewrite-
the-farm-bill-in-less-than-two-weeks/.

---------------------------------------------------------------------------
    In summary:

    The rise of the small farmer who struggles to find credit, constant 
consumer demand for affordable and locally grown whole foods, the U.S. 
economic climate, and the steady increase in our nation's obesity--each 
of these things exemplifies the need for a responsive and democratic 
farm bill in 2012. It cannot be denied that the local food movement is 
thriving but the support of food policy makers on the national level is 
vital to its ultimate success in our lifetimes.
    This statement is also supported by Sam Hendren of the AuSable 
Valley Grange (www.ausablevalleygrange.com), and Fledging Crow Farm in 
Keeseville, NY (www.fledgingcrow.com).

Gail Brill,
Founding Director,
Adirondack Green Circle.
                               attachment
    Who is the Adirondack Green Circle?

    Started in 2007, we are a regional group of 200 concerned citizens 
that tackle issues in four arenas: climate change, over-consumption, 
self sufficiency and energy use.

    How do we do that?

  <bullet> We are advocates for our small, local farm community that 
        surrounds us.

    Three years ago we started the Farm 2 Fork Festival in Saranac Lake 
that draws well over 500 people from the region to see home cooks 
cooking dishes using vegetables and meats from the farmers market.
    In 2011 we started Chefs & Farmers: Taste The Adirondacks. Saranac 
Lake's first food tasting pairing local chefs and area farms.

  <bullet> We lead ``Lost Arts Workshops'' that teach people long 
        forgotten skills such as cheese making, pickling and 
        fermentation, soap making, bread making, wild edible plant 
        identification and more.

  <bullet> We have led workshops on Sustainable Living, Voluntary 
        Simplicity, Ecological Eating and Climate Change.

  <bullet> We set up tents and receptacles and collect recyclables at 
        area events.

  <bullet> We bring pertinent and groundbreaking films to the community 
        to raise consciousness through our annual Wake-Up Film 
        Festival.

  <bullet> We partner with the area college and high school 
        environmental groups: Youth Climate Summit at the Wild Center, 
        Junk to Funk at North Country Community College and more.

  <bullet> We got the Mayors of Lake Placid and Saranac Lake to sign 
        the Mayor's Climate Protection Agreement in 2008.

  <bullet> We were instrumental in getting the Saranac Lake Community 
        Garden off the ground.

  <bullet> We started the Green Grace Project which delivered baskets 
        of local food to needy families on Christmas Eve.

  <bullet> Our founding Director traveled to Finland on a State 
        Department grant to learn about Climate Change and to build 
        bridges between two countries facing similar economic changes 
        as a result of Climate change.
                                 ______
                                 
                       Comment of Shannon Brines
    Date Submitted: Friday, May 18, 2012, 12:22 p.m.
    City, State: Dexter, MI
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Fruits, Greenhouse/nursery, Nuts, Poultry/
poultry products, Specialty Crops, Vegetables, Other
    Size: 50-150 acres
    Comment: As an organic (not certified) fruit and vegetable farmer 
of over 80 acres I think we should be transitioning from subsidies and 
programs that create unhealthy food to programs that work towards more 
healthy food. Ultimately I'd like to see a level playing field for all 
producers in the distant future where all subsidies are phased out.
    Currently, of programs to be in the farm bill I would back:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Kathi Brinkman
    Date Submitted: Saturday, May 19, 2012, 4:04 p.m.
    City, State: Greensboro, NC
    Occupation: Customer Relationship Manager II
    Comment: Monsanto needs to be stopped! Farmers need money to 
continue to send wholesome produce to the grocery stores so we can eat 
healthy and not put GMO's into our bodies.
                                 ______
                                 
                       Comment of Gail Brinkmeier
    Date Submitted: Friday, May 18, 2012, 9:58 a.m.
    City, State: Saint Paul, MN
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 500-999 acres
    Comment: I am a 5th generation farmer in Minnesota. This is what my 
family has been doing since we came to America.
    My farm used to be far out in the country, but now it is in the ex-
urbs. I know that in my children's life time it will cease to be a farm 
and become part of the city.
    That is not my ideal development, but I am OK with it, it is the 
life of place to move, change and grow.
    What I am not OK with is the current state of agriculture in 
America.
    There should be a symbiotic relationship with the hard working 
honest people who grow real food and the everyday average American who 
buys it. Special interests and monopolistic middle-man should not reap 
the King's ransom in this exchange.
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.

    Thank you for your time and interest in reading my comments.
            Sincerely,

Gail Brinkmeier.
                                 ______
                                 
                       Comment of Susan Broadhead
    Date Submitted: Sunday, May 20, 2012, 2:45 p.m.
    City, State: Barnardsville, NC
    Occupation: Retired
    Comment: As a consumer, I wish to have organic foods available to 
me. I believe there are many Americans who share this desire. We need a 
farm policy that supports and facilitates the production of organic 
food without putting needless roadblocks in the way.
    It is also a source of good jobs for many young people.
                                 ______
                                 
                      Comment of Bonnie Brodersen
    Date Submitted: Thursday, May 17, 2012, 8:39 p.m.
    City, State: Ashland, OR
    Occupation: Lawyer and Homemaker
    Comment: Please endorse all provisions of the Local Foods, Farms 
and Jobs Act (H.R. 3286) and fully fund the Organic Research and 
Extension Initiative (ORE) at the 2008 level. I grew up on a 160 acre 
working farm in Iowa and still own farm land. I have been eating 
organically-grown food for over 15 years. I do so because I have seen 
the increase of cancer in farmers in my hometown. My mother, a farmer 
died of leukemia and her doctor said her leukemia was probably benzene-
related. In the 1970's my parents started farming with herbicides and 
fertilizers containing benzene. Please help farmers and consumers by 
giving your full support to Organic farming. Thank you.
                                 ______
                                 
                      Comment of Kimberly Broerman
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Atlanta, GA
    Occupation: Pastor/Teacher
    Comment: Over the past few years, I have undertaken a serious 
exploration of where our food comes from, and have restructured our 
diet to try to eat as much local, seasonal, and organic food as 
possible. We are so grateful for the local farms and farmers market 
making great food available to us. I also teach a course called Mindful 
Eating to raise others' consciousness about our food choices. As a 
person of faith, I am really disturbed by the environmental, communal, 
social and health impacts of our current food system and want to 
support efforts to bring more clean, fair and sustainable food to more 
people. So I support these recommendations proposed by Slow Food USA, 
of which I am a proud member:
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                      Comment of Dianne Bronkhorst
    Date Submitted: Friday, May 18, 2012, 12:30 p.m.
    City, State: Parkland, FL
    Occupation: Stay-at-Home Mom
    Comment: The U.S. food & agricultural policy must focus on adopting 
best agricultural practices that put the health of its citizens, the 
land & the livelihood of farmers & farm workers over the interests of 
industrial agriculture lobbyists.
    We need funding to vital programs such as nutrition, conservation & 
support for organic & sustainable agriculture.
    We need a better farm bill today & it's time for real reform.
    Please support what I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms & Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, & making sure that enrollment 
        in any new insurance subsidies are tied directly to compliance 
        with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> No GMO's in our food supply.

  <bullet> Fair wages & health benefits to farmers & farm workers.

    Thank you.
                                 ______
                                 
                        Comment of Indee Brooke
    Date Submitted: Friday, May 18, 2012, 4:04 p.m.
    City, State: Montrose, CA
    Occupation: Secretary
    Comment: It is vital that sustainable agriculture be supported and 
promoted as part of a responsible stewardship approach to present and 
future food production that protects and promotes eco-systems with many 
different species of plants and animals. The deeper and broader the 
species within any ecosystem, the more stable that ecosystem is and the 
more capable of responding to environmental stress. Current 
agribusiness practices tend toward plant crop monoculture and also 
result in runoff of fertilizers that cause imbalance in nearby 
waterways.
                                 ______
                                 
                        Comment of Robert Brooks
    Date Submitted: Wednesday, May 09, 2012, 8:29 p.m.
    City, State: Hayward, CA
    Occupation: Retired
    Comment: I spent 13 years in the San Joaquin Valley. The small 
farmers desperately need help, but most of the help goes to huge 
commercial farming & they don't need or deserve it.
                                 ______
                                 
                        Comment of Serena Brooks
    Date Submitted: Friday, May 18, 2012, 2:57 p.m.
    City, State: Kings Park, NY
    Occupation: Librarian
    Comment: I think it is vital that we support organic farmers and 
farmers that humanely raise animals, as opposed to the factory farms 
and those farmers growing foods with harmful pesticides. Our very 
health and the health of our nation depend upon it. This is not only an 
animal rights issue, but a human rights issue, as mistreated animals 
that are pumped full of antibiotics and produce that is laden with 
pesticides are both extremely detrimental to the health of the humans 
eating them!
                                 ______
                                 
                         Comment of T.J. Brooks
    Date Submitted: Saturday, May 19, 2012, 6:45 a.m.
    City, State: Seminole, FL
    Occupation: Retired
    Comment: There is a growing segment of the population that is 
retiring and seeking to live on small farms. These voters wish to be 
recognized as a distinctly separate type and size of agricultural 
producer.
    Their customer base is one which seeks foodstuffs grown without 
chemicals. This segment of farmers need to be recognized and treated by 
law not as corporate farms but as the originators of agriculture once 
were in this country.
                                 ______
                                 
                        Comment of Claire Broome
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Berkeley, CA
    Occupation: Public Health
    Comment: The new farm bill is of central importance to the 
country--our farmers, consumers, economy, and environment. Please 
Invest our tax dollars for the benefit of the whole country, not 
subsidizing foods that increase obesity, or providing welfare for 
wealthy agribusiness. Most importantly: any subsidies or insurance 
should have income limits so that they go to smaller units that really 
need them
    Regarding specific provisions:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Louis Brouillet
    Date Submitted: Friday, May 18, 2012, 11:25 a.m.
    City, State: San Anselmo, CA
    Occupation: Food Entrepreneur
    Comment: Policies to help our nation become healthier are long 
overdue. How can our government support subsidies to food that makes us 
sick and let our health be in disarray?
    The solution is simple, our government needs to stand for something 
and stop being the big AG and Food companies puppets.
    Please help us live better lives by stopping the subsidies to corn 
and soy and funnel the money to real farmers.
                                 ______
                                 
                     Comment of James R. Broussard
    Date Submitted: Friday, May 18, 2012, 9:06 p.m.
    City, State: New Iberia, LA
    Producer/Non-producer: Producer
    Type: Fruits, Nuts, Vegetables
    Size: Less than 50 acres
    Comment: Like in other areas of the economy, it is not healthy if 
we let the corporations become dictators in agriculture too. 
Agribusiness is important but it is not to become the only game in 
town. If it does, we producers will become serfs far more enslaved than 
in the Middle Ages. Beware of Robber Barons!
                                 ______
                                 
                         Comment of Lisa Browdy
    Date Submitted: Friday, May 18, 2012, 5:01 p.m.
    City, State: Oak Park, IL
    Occupation: Health Coach
    Comment: Our country is suffering an obesity crisis. It is 
ridiculous that we subsidize corn, wheat, soy and CAFO meat (which is 
bad for us) rather than fresh produce and sustainably-raised meat, 
which is better for us and the environment! Please don't let the 
Agribusiness lobby make you do the wrong thing!
                                 ______
                                 
                         Comment of Ryan Brower
    Date Submitted: Wednesday, May 02, 2012, 9:12 a.m.
    City, State: Cedar Run, NJ
    Producer/Non-producer: Producer
    Type: Fruits
    Size: 50-150 acres
    Comment: Small farms need to be preserved and not be required to 
meet the astronomical standards of large-scale farms. Small farms are 
the life blood of many communities around the world, and they should 
have their own set of standards and regulations.
                                 ______
                                 
                        Comment of Angela Brown
    Date Submitted: Friday, May 18, 2012, 7:03 p.m.
    City, State: N. Chesterfield, VA
    Occupation: Retired Social Worker/Child Advocate/Caretaker for 
Elderly Relatives
    Comment: Do your duty and give us real reform, not slashing organic 
studies and initiatives and food stamps while yet again subsidizing the 
big interests.
    I have been a food stamp worker and seen truly hungry children in 
this country like you likely never have. Meanwhile I try hard to 
safeguard the food supply for future generations while big interests 
undermine our health and small business interests at every turn. Please 
understand that there is a huge market out here for clean practices and 
clean unchemicalized food. Please understand that when you sell out to 
big interests you are selling out the future of America as a free land. 
Is this what you want for your descendants and for America? If I have 
to buy food from Costa Rica to know it is organic than I will, but what 
a shame. I used to buy American when possible, but you are making it 
increasingly difficult to feel good about that. I do not want to 
support big interests like Monsanto and huge farms when there are still 
family farms in my state. My grandmother grew strawberries and my 
father in law raised a small number of cows when he retired so my heart 
is with the small farmers. Just today I was in Costco buying apples and 
noticed that they came from several states away when we have apple 
orchards right here in my state. I did not see a single item that was 
grown in my state. When I asked they said that they were likely cheaper 
elsewhere, but there is still a cost from the polution that came with 
transporting it here and the extreme packaging that the apples came in 
that I see my neighbors bring home and that presumably will go into the 
landfills or use energy even if recycled. But big interests can do such 
eye candy. Doesn't make it right, though. Fresh and closer by would be 
better. And organic. Not big interests. Check out Costa Rica where the 
whole country is organic. You can see the difference in their produce 
and probably in medical costs . . .
                                 ______
                                 
                        Comment of Bonnie Brown
    Date Submitted: Friday, May 18, 2012, 11:34 p.m.
    City, State: Lynn, MA
    Occupation: Unemployed
    Comment: The farm bill should be about Food, the food that 
Americans eat--or should eat--every day, not about commodities and 
profits for large corporations. Please make the farm bill focus on 
healthy, local food for all Americans.
                                 ______
                                 
                        Comment of Cameron Brown
    Date Submitted: Sunday, May 20, 2012, 9:21 a.m.
    City, State: Thiells, NY
    Occupation: Musician, Composer and Music Teacher
    Comment: We must wake up and understand that we need an 
agricultural policy that focuses on organic food and sustainability--
the long-term health of the land, people and animals. The big 
corporations are being allowed to use us as guinea pigs in their 
voracious hunt for profits. We have no idea about the long-term 
consequences of all this genetic tinkering. We need to focus on totally 
natural methods of food production. The health of the planet, it's 
people and it's farm land are not a good subject for capitalistic 
exploitation. Shouldn't that be pretty obvious!
                                 ______
                                 
                         Comment of Carl Brown
    Date Submitted: Thursday, May 03, 2012, 8:10 p.m.
    City, State: Griggsville, IL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 301-500 acres
    Comment: Have AIP/RMA protect only the 60% to 85% of the crop x% 
paid for with farmer premiums.
    Have FSA/Government protect 0% to 60% of the crop x% paid for with 
Direct Payment money instead of paying it directly to the farmer.
    Direct Payments are killing the small farmer.
                                 ______
                                 
                         Comment of Carol Brown
    Date Submitted: Friday, May 18, 2012, 2:39 p.m.
    City, State: Columbia, MO
    Occupation: Mother, Seamstress, and Small Business Owner
    Comment: I am very concerned about the short term and long term 
effects that the farm bill has on the types of food, and the prices of 
food available to consumers in our country.
    I am disheartened that farm bills in the past have subsidized 
unsustainable farming practices, and the production of terribly 
unhealthy food.
    I would like our farm bill to subsidize smaller farms, sustainable 
organic agriculture, and farms that produce food that can be eaten 
directly rather than crops that are highly refined into unhealthy 
products (like high fructose corn syrup for example).
    It is obscene to be supporting the production of products like high 
fructose corn syrup with our tax subsidies.
    The farm bill can work to support farmers who grow fruits and 
vegetables.
    The farm bill can support local farmers' markets.
    The farm bill can subsidize the use of food stamps at these 
farmer's markets, as is the case at one of the many farmers' markets in 
my town, making locally grown organic produce affordable to even the 
poorest of my neighbors.
    The way I see it, the current farm bill subsidizes giant 
agricultural companies. It subsidizes the production of products that 
become fast food hamburgers and chicken nuggets. It subsidizes the 
crops that are grown to be processed into high fructose corn syrup. It 
subsidizes unhealthy food production, unhealthy farm practices, 
unsustainable food production method. We know all of this. The average 
American knows all this. The average member of Congress knows all this. 
All of us know that it could be different. It all starts with the farm 
bill. We are all watching to see what you all come up with.
                                 ______
                                 
                      Comment of Cynthia M. Brown
    Date Submitted: Saturday, May 19, 2012, 2:12 p.m.
    City, State: San Diego, CA
    Occupation: Retired
    Comment: The Best United States agricultural practices, put the 
health of our citizens, the land and the livelihood of farmers and farm 
workers over the interests of lobbyists for industry! And, many of our 
politicians do not have the same morals and values as the majority of 
the American people! They are in it for power and money. And corporate 
greed feeds on that! It is destroying the American way of life.
    We need to change all of that, now!
    American farmers and food consumers will benefit from a fair and 
healthy farm bill.
    Some of the ideas that have been presented are completely out of 
touch and incomprehensible: including cutting funding to vital programs 
such as nutrition, conservation and support for organic and sustainable 
agriculture. What the hell is that all about . . . really!
    The American farm bill needs to be created in the right way!
    My family and I are against Monsanto and the like; and what they 
have been doing to our environment here and around the world. We want 
real food . . . not GMO poisons.
    We want family farmers to be able to grow healthy food, in healthy 
soil, have a good livelihood, in peace, working for themselves and for 
the American people, and not be hounded by corporate bastards.
    And we want our food labeled too.
    Get it done the right way!
                                 ______
                                 
                         Comment of Gary Brown
    Date Submitted: Friday, May 18, 2012, 3:41 p.m.
    City, State: Honolulu, HI
    Occupation: Retired
    Comment: I demand that all foods intended for human consumption be 
properly labeled for organic and GMO content. I have a right to know 
and choose what I put into my own body.
                                 ______
                                 
                        Comment of Heather Brown
    Date Submitted: Friday, May 18, 2012, 4:14 p.m.
    City, State: Brooklyn, NY
    Occupation: Chef
    Comment: I am writing you to urge your support for the Local Foods, 
Farms and Jobs Act (H.R. 3286), and Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236). I would also urge you to support retaining 
the full funding of the Conservation Stewardship program and 
maintaining the EQIP Organic Initiative.
    It is important to keep good things in place while making 
improvements to fix the broken food system in this country.
    As the granddaughter of Iowa dairy farmers I am deeply saddened by 
the loss of family farming, but incredibly hopeful and encouraged by 
the new movements afoot to reinvigorate agriculture in this country.
    You are such an amazing Congresswoman. I am so honored to have you 
as my representative. Thank you for your service!

Heather.
                                 ______
                                 
                         Comment of Inga Brown
    Date Submitted: Saturday, May 19, 2012, 10:20 a.m.
    City, State: Layton, UT
    Occupation: Holistic Plant Based Nutritionist
    Comment: Dear members of congress,

    I would greatly appreciate your consideration of these issues 
facing organic farmers. It is critical to the lives and health of 
people in this country to have access to organic produce that has not 
been compromised with GMO products. The strong hold that big 
agriculture has on the farming industry is devastating to the 
livelihood of the organic farmer and also to the health of everyone who 
consumes GMO products. In this country, we should have a choice and 
opportunity to consume the kind of produce and meats we choose. I 
already pay higher prices for organic produce and organic meats, so 
please don't devastate this small industry any further. Even in Europe, 
they have rejected the GMO by Monsanto and realize that these GMO 
products are not good for us. If you so choose to maintain the big 
agriculture, you are ultimately affecting people's health. At the very 
least, please give the organic farmer's the freedom to farm and provide 
natural produce that has not been adulterated by genetically modified 
seeds and sprayed with herbicides and pesticides that are toxic. We the 
consumers have a right to have organic foods and not have the 
government determine what we can eat. It angers me to think that 
decisions are made in congress that only affect the money and control 
the government has on the farmers rather than considering what is best 
for the health of people in this country. This shouldn't be about money 
and excess production, but should be about the health of individuals, 
the health of animals and the purity of the produce grown. Please allow 
us the freedom of choice. The last I checked, these are the principals 
this country was founded upon.
            Sincerely,

Inga Brown.
                                 ______
                                 
                         Comment of Jami Brown
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Chattanooga, TN
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Please don't cut funding for small farmers. Corporate 
Agriculture Industries don't need government subsidies. Small time 
farmers do! Remember who you work for as representatives of all 
Americans not Corporations!
                                 ______
                                 
                       Comment of Jennifer Brown
    Date Submitted: Sunday, May 20, 2012, 10:36 a.m.
    City, State: Denton, TX
    Occupation: Mother and Medical Assistant
    Comment: I want to be able to feed my daughter the same quality of 
foods I grew up on. I lived near a farm growing up and always had 
fresh, organic produce. I grew up healthy. I am rarely sick and have 
never had any serious medical problems. I now purchase organic produce 
for my family and find it difficult to find all the organics that I 
would like to be providing. On occasion I go with the regular produce, 
but with GMO's being put out without any labeling whatsoever, I will 
not be able to supplement the lack of organics with something that is 
produced to be it's own toxin. It was bad enough that I felt guilty 
using produce that was treated with toxins, hoping that ``this one 
time'' won't do too much harm. I just want to be able to confidently 
feed my little girl and know there is no way what I am giving her will 
ever harm her. Ever. It is outrageous that there are so few regulations 
to protect us in regard to foods that could very well be a cause in 
serious illnesses.
                                 ______
                                 
                       Comment of Kimberly Brown
    Date Submitted: Sunday, May 20, 2012, 8:07 a.m.
    City, State: Bedford, NH
    Occupation: Stay-at-Home Mom
    Comment: Every time I go to the grocery store, I fear for the 
health of my children. I try to buy organic, but it's very expensive. 
Other countries in Europe and even China are outlawing industrial food 
practices that we still allow. But we should be the lead country in 
controlling our food supply and we're far from it! Please stop letting 
industries control our food supply. Our government may be protecting us 
from terrorist in Afghanistan, but they are not protecting us from the 
terrorist who control our food supply all in the name of the might 
dollar. Thank you for your time and efforts concerning the health of 
Americans.
                                 ______
                                 
                        Comment of Nicole Brown
    Date Submitted: Friday, May 18, 2012, 3:26 p.m.
    City, State: Camas, WA
    Occupation: Production Lead Operator
    Comment: We as a nation need to continue sport to good clean 
healthy food! Please continue support for small local farmers. We need 
to cut our ties with big ag and corrupt businesses like Monsanto, 
Libby, Dow. Our environment and children depend on us to make the right 
choices for their protection. Please make the right choice.
                                 ______
                                 
                       Comment of Roderick Brown
    Date Submitted: Friday, May 18, 2012, 9:48 p.m.
    City, State: San Diego, CA
    Comment: America deserves clean, fresh, organic food and drink as 
does our farm stock pets and wildlife, (fish, fowl and animals). Please 
remember, do only that which serves the people.
    Thank You.
                                 ______
                                 
                        Comment of Sheila Brown
    Date Submitted: Friday, May 18, 2012, 2:10 p.m.
    City, State: Vashon, WA
    Occupation: Gardener
    Comment: Time now for real reform, not slashing benefits to the 
poor. My son is seriously mentally disabled and really need every 
dollar of his food stamps and DSI check. Thanks for caring for the 
least of us. Sheila Brown
                                 ______
                                 
                        Comment of Theresa Brown
    Date Submitted: Sunday, May 20, 2012, 8:39 p.m.
    City, State: Johns Creek, GA
    Occupation: Real Estate Agent
    Comment: I would along with millions of others would like to see a 
fair organic farm bill. We would like for congress to work for the 
people and not for Big Agriculture. We have the right to eat healthy 
food and we must protect the planet in order to do so. It should not 
always be about how much money some cooperation can make and how much 
the stockholder earning will increase. It's about the health of the 
planet and the health of the people on it. So please do the Right thing 
and pass an organic farm bill.
            Thank you,

Theresa Brown.
                                 ______
                                 
                       Comment of Victoria Brown
    Date Submitted: Wednesday, May 02, 2012, 10:49 a.m.
    City, State: McAllen, TX
    Occupation: Student
    Comment: More members of House of Representatives representing more 
farms within their districts without becoming inefficient and 
impersonal

  <bullet> encourage a younger generation of farmers who received a 
        higher education

  <bullet> make the information and details about the farm bill more 
        accessible and understandable to the public

  <bullet> reevaluate the criteria for food stamps, so it promotes 
        purchasing food from farmer's markets
                                 ______
                                 
                         Comment of R.J. Browne
    Date Submitted: Wednesday, May 09, 2012, 4:36 p.m.
    City, State: Weed, CA
    Occupation: College Instructor
    Comment: No one should suffer from hunger. It is within our means 
to provide food for everyone--our nation is blessed for its abundance 
and prosperity and humanity. Good nutrition is crucial, most 
importantly organic foods; these must be protected and expanded and 
should take precedence over agribusiness's nonorganic crops. Organic 
foods should be and must be the only kind of crops grown.
                                 ______
                                 
                       Comment of Timothy Browne
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: Atlanta, GA
    Occupation: Sales of Produce
    Comment: Let's raise the bar. Europe is already leading the way in 
emissions and clean air acts. They also have much better farming 
practices. Organic farming is a wonderful thing for everyone. With the 
exception of some corporate interests that have ruin the god given duty 
to grow one's own food naturally and fruitfully. Organic farming is 
farming the way that god intended plants to be grown. These men and 
women in Washington banned stem cell research but sit idly by whilst 
corporate scientists mix human genes into rice crops. At least stem 
cell research saves lives. Please help raise the bar and set organic 
farming as the standard all in the land should meet. Thank you.
                                 ______
                                 
                       Comment of Brenda Browning
    Date Submitted: Tuesday, March 20, 2012, 9:49 a.m.
    City, State: Lubbock, TX
    Occupation: Retired Blue Collar
    Comment: As we do live in the country and appreciate the CRP grass 
keeping the dirt down, I wonder why farmers cannot do their own 
planting at their own expense rather than have the tax payers pay for 
that as well as subsidies on their crops. I feel we need to really stop 
some of the programs. Would love to assist them, but times are too 
tough to help everyone. We also need to stop foreign aid to other 
countries until we can get our country back on track, that includes 
Afghanistan. Thanks for the opportunity to voice my opinion.
                                 ______
                                 
                     Comment of Lori Brown-Patrick
    Date Submitted: Friday, May 18, 2012, 10:03 a.m.
    City, State: Lanesville, IN
    Occupation: Editor, Writer
    Comment: Food needs to be close, clean, and sustainable. We need 
more (and smaller) farms, scattered among us, everywhere people live--
neighborhood food producers who can survive by what they do and help 
their neighbors to do the same by the fruits of their labor. We need 
more farmers, even if we have to give them land to begin on, insisting 
that they use sustainable farming methods and trade honorably with 
their neighbors--and their neighbors must be encouraged to support 
them. We need a new vision of food and farming in this country--one 
that respects the Earth, the people who work it, and the sacred nature 
of the contract between the three: Earth, farmer, and consumer. Please 
make sure any farm legislation makes room for humane, small, 
sustainable, local farms and elevates food production to the honorable 
calling it once was and must be again.
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits
                                 ______
                                 
                      Comment of Patricia Bruinsma
    Date Submitted: Friday, May 18, 2012, 5:46 p.m.
    City, State: Williamsburg, VA
    Occupation: Accountant
    Comment: Please don't let Congress cut $4 million from organic 
research funding and cut in half funding to support Beginning Farmers. 
Tell Congress to support organics. Our physical health, as well as the 
health of the world as a whole, depends on your diligence in this 
matter. We must stop polluting our bodies, and our Earth, with toxins. 
We need organic funding today and always.
    Thank you for your time,

Patricia Bruinsma.
                                 ______
                                 
                       Comment of Christina Bruns
    Date Submitted: Friday, May 18, 2012, 9:26 p.m.
    City, State: Dallas, PA
    Occupation: Retired Public and Catholic School Teacher
    Comment: I believe that America can produce healthy food for our 
people. I do not want factory food produced for my children and 
grandchildren. Research proves what is healthy and we should follow 
their lead for wholesome food not food for profit. My entire family is 
vegetarian because of our belief it is best for health and for the 
environment and we can feed the world on a vegetarian diet. Why must 
industry dictate health, industry and corporations are not people, 
people are people. Our laws should reflect what is best for us and 
future generations.
                                 ______
                                 
                       Comment of Eric Bruynseels
    Date Submitted: Sunday, May 20, 2012, 5:06 p.m.
    City, State: River Forest, IL
    Occupation: Student
    Comment: Please, do not cut SNAP. Cutting SNAP will mean even less 
food for hungry people already in poverty--think of the children.
                                 ______
                                 
                       Comment of Leo Bruynseels
    Date Submitted: Sunday, May 20, 2012, 5:41 p.m.
    City, State: River Forest, IL
    Occupation: Retired
    Comment: Please do not cut SNAP. Cutting SNAP will result in even 
less food being available to single people and families who are already 
poor and hungry. Think of the children: it will be even more difficult 
for them to concentrate on their school work if, on top of everything 
else they experience, they go hungry! We are a rich country and we can 
afford it. We waste huge amounts on other things. Prioritize!
                                 ______
                                 
                      Comment of Louise Bruynseels
    Date Submitted: Sunday, May 20, 2012, 5:22 p.m.
    City, State: River Forest, IL
    Occupation: Retired
    Comment: Please, do not cut SNAP. Every month I serve hungry people 
at our food pantry. Cutting SNAP will mean even more people will go 
hungry--please think of the children.
                                 ______
                                 
                         Comment of Alex Bryan
    Date Submitted: Sunday, May 20, 2012, 10:06 p.m.
    City, State: Lansing, MI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a young farmer 
and I'd like to share my support for programs that help the next 
generation of growers build strong farm businesses. As it's estimated 
that 125,000 farmers will retire in the next 5 years, it's absolutely 
critical that farm bill programs help citizens get started in this 
challenging field. I ask that the Committee endorse all of the 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill. Owning a business in the state of Michigan 
is important to me. It is especially important to follow in the 
footsteps of my grandfather, an apple grower of Mid-Michigan. Without 
support to level the playing field for beginning farmers like myself, I 
will struggle and likely fail. For a state with such a large reliance 
on agriculture, this is not acceptable. I would very much appreciate 
any and all support you can give to make sure these important programs 
remain funded.
            Sincerely,

Alex Bryan.
                                 ______
                                 
                        Comment of Marjory Bryan
    Date Submitted: Wednesday, May 16, 2012, 2:32 a.m.
    City, State: Portland, OR
    Occupation: Marketing
    Comment: I am a single (and only) parent living without family.
    I use food stamps and hate that I have to but without it my 5 yr. 
old & I would be very very very very hungry and although I've never 
asked for public support be . . . I'd be forced to ask for cash 
benefits for food, should SNAP be altered or diminished.
                                 ______
                                 
                        Comment of MaryAnn Bryan
    Date Submitted: Friday, May 18, 2012, 3:29 p.m.
    City, State: Prescott, AZ
    Occupation: Homemaker
    Comment: We need full and honest representation that reflects our 
concerns about health and food safety and labeling of our food to 
reflect what is in it, especially GMO's.
    I already wrote to Rep. Gosar about this and got a reply that 
totally supports keeping the GMO's hidden. I feel that we are not being 
listened to.
            With dismay,

MaryAnn Bryan.
                                 ______
                                 
                         Comment of Brit Bryant
    Date Submitted: Saturday, May 19, 2012, 8:44 p.m.
    City, State: Portland, OR
    Occupation: Grocery Store Manager
    Comment: Please prioritize local, natural, organic whole foods 
produced by small farmers. We have an amazing opportunity to affect the 
health of a generation by making responsible choices in what we 
prioritize.
                                 ______
                                 
                        Comment of Ellen Bryant
    Date Submitted: Friday, May 18, 2012, 8:19 p.m.
    City, State: Eureka, CA
    Occupation: Retired
    Comment: The farm bill must be written for farmers that are 
interested in keeping the land, food and people of America healthy. 
Mega-Corp(se)phood is for profit and it's up to you to stop their 
destruction for profit assaults on U.S.(A).
                                 ______
                                 
                        Comment of Emily Bryant
    Date Submitted: Monday, May 14, 2012, 3:04 p.m.
    City, State: Indianapolis, IN
    Occupation: Executive Director, Feeding Indiana's Hungry, Inc.
    Comment: As the number of families struggling to make ends meet 
increased significantly during the recession, Indian's food insecure 
population now includes more than one million Hoosiers. Even as 
unemployment remains near 9 percent and food banks continue to be 
pressed to meet need in their communities, we have experienced 
significant declines in Federal commodity purchases and charitable 
donations.
    In partnership with more than 1,700 local agencies, 62% of which 
are faith-based, our food banks are now feeding roughly 700,000 
Hoosiers a year. We could not meet current need without support from 
Federal nutrition programs like TEFAP and CSFP, nor could we meet added 
demand if other Federal nutrition programs like SNAP were weakened or 
charitable giving tax deductions were limited.
    As Congress addresses the farm bill, Feeding Indiana's Hungry urges 
legislators to safeguard nutrition assistance and other safety net 
programs.
    TEFAP Food Commodities accounted for 24% of the food moving through 
the member food banks of Feeding Indiana's Hungry in 2011, including 
mandatory commodities required by the farm bill and bonus commodity 
purchases made by USDA either to satisfy farm bill specialty-crop 
purchase requirements or in response to market conditions. TEFAP 
commodity support dropped by nearly 30% ($173 million) in FY2011 due to 
strong agricultural markets, and rising gas prices weakened the impact 
of TEFAP distribution funding.
    We urge you to in the 2012 Farm Bill to make TEFAP commodities more 
responsive to changes in need by tying mandatory funding to 
unemployment levels and clarify the Agriculture Secretary's authority 
to purchase bonus commodities in response to high need as well as low 
commodity prices. We also urge you to reauthorize TEFAP Storage and 
Distribution Funds at $100 million per year and TEFAP Infrastructure 
Grants at $15 million per year.
    We ask that the 2012 Farm Bill transition CSFP to a seniors-only 
program by phasing out eligibility of women, infants, and children 
while grandfathering in current participants to promote greater 
efficiencies and recognize CSFP's evolution to serving a primarily 
senior population.
    We finally ask that the farm bill maintain SNAP funding to support 
current eligibility and benefit levels and oppose harmful policy 
changes.
            Respectfully submitted,

Emily Weikert Bryant, Executive Director, Feeding Indiana's Hungry, 
Inc., Indiana's state association of Feeding America affiliated food 
banks
                                 ______
                                 
                       Comment of Russell Bryant
    Date Submitted: Friday, May 18, 2012, 2:06 p.m.
    City, State: Omaha, NE
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 50-150 acres
    Comment: Organic is important to maintain health of this country 
with less food . . . I have proved that on our Dairy herd. We have had 
first place quality milk in Nebraska for 6 years. It takes top quality 
live soil to produce top quality food for healthy people. This will 
help our budget by cutting medical costs.
                                 ______
                                 
                       Comment of Bedzaida Bryen
    Date Submitted: Tuesday, May 08, 2012, 8:57 a.m.
    City, State: Ft. Myers, FL
    Occupation: Volunteer Manager
    Comment: Food banks struggles daily to meet the growing need for 
food in our communities. One of the most impressive facts about Food 
Banks is that they do not work in autonomy, but congruent with 
government and other nongovernmental organizations to ensure that no 
one adult, child or aging go to bed hungry.
    We should not consider a weak, to no safety net, it would be 
catastrophic. We need a strong farm bill to safeguard that struggling 
families do not plunge further into despair, but can at minimal put 
food on the table.
    I ask that you pass a farm bill that protects and strengthens 
programs like SNAP, TEFAP, and CSFP. Our community cannot afford cuts 
to these programs.
                                 ______
                                 
                       Comment of Helen Bryenton
    Date Submitted: Friday, May 18, 2012, 11:50 a.m.
    City, State: Knoxville, TN
    Occupation: Violinist
    Comment: I want to KNOW that the food in my grocery store is safe 
and healthy. An increase in the cost of safe food offsets the costs of 
ill health from low quality and less healthy foods.
                                 ______
                                 
                       Comment of Betty Buchanan
    Date Submitted: Sunday, May 13, 2012, 2:45 a.m.
    City, State: Bakersfield, CA
    Occupation: Retired
    Comment: Less or no subsidies for big corporate farms and ranches, 
lots more subsidies for independently owned ones. Get GMO products 
labeled or better yet put a stop to them!
                                 ______
                                 
                        Comment of Wade Buchanan
    Date Submitted: Friday, May 18, 2012, 4:51 p.m.
    City, State: Colorado Springs, CO
    Occupation: Unix Systems Administrator
    Comment: I understand the need to reign in budgets and the crazy 
spending, but some things do require investment and support. I support 
the following things and ask that you do as well:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

    It is time to start cutting large farm subsidies for crops that are 
over produced, and have largely lead to the obesity epidemic in our 
country and start making investments where it counts. We all hear the 
lamenting of the vanishing small farmer and local economies so here is 
your opportunity to do something to reverse that trend.
    Thank you for you time and support.
                                 ______
                                 
                         Comment of Cathy Buck
    Date Submitted: Thursday, April 19, 2012, 10:12 a.m.
    City, State: Pittsburgh, PA
    Occupation: Client Associate
    Comment: Never in a million years did I ever think I would need 
help feeding my family. When my husband, a successful self-employed 
contractor, suddenly had no work due to the economy and my income was 
just enough to keep the bill collectors at bay, food was something that 
became pretty scarce--and with two children (ages 10, 5) that's not 
something you can skimp on. So we applied, and thankfully, were 
approved for food stamps. Now food is not a problem.
    Being self-employed you get nothing if you are out of work--those 
are the people that need the help. Please continue to feed families. 
Thank you.
                                 ______
                                 
                        Comment of Sherman Buck
    Date Submitted: Friday, May 18, 2012, 10:01 p.m.
    City, State: Seattle, WA
    Occupation: Harborview Medical Center--Patient Services Specialist
    Comment: U.S. food and agricultural policy must focus on adopting 
best agricultural practices that put the health of its citizens, the 
land and the livelihood of farmers and farm workers over the interests 
of industrial agriculture lobbyists. To not do so is to continue the 
same insanity rooted in greed and market monopolies.

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Cutting funding to vital programs such as nutrition, 
        conservation and support for organic and sustainable 
        agriculture.

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    The House Ag Committee has already voted to slash $33 billion from 
the food stamp program while leaving farm subsidies unscathed. Creating 
a $33 billion new entitlement program that guarantees the income of 
profitable farm businesses on top of $90 billion in subsidies for crop 
and revenue insurance policies is hypocritical at best, and at its 
worst subsidizes those agribusinesses that don't need yet more 
subsidizing.
    Ironically, the Senate Ag Committee has already voted to cut $4 
million from organic research funding and cut funding to support 
Beginning Farmers in half. The lack of support in these key areas is 
indicative of those on the committee who continue to support corporate 
agribusiness agendas vested maintaining a monopoly on markets. To 
continue ignoring this problem is to continue legitimizing 
dysfunctional practices that benefit the few, while continuing 
destructive practices for the environment and escalating health and 
wellness issues with those who continue to consume foods that are less 
than adequate for consumption. Putting the fox in charge of the hen 
house is similar to corporate interests in charge of the House 
Agricultural Committee.
    The Senate Ag Committee has also voted to get rid of wasteful 
subsidy payments. It has proposed to replace it with a new subsidized 
insurance program that leading sustainable agriculture advocates are 
calling rife with opportunities for fraud and abuse.
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk. According to the 
National Sustainable Agriculture Coalition's Ferd Hoefner, ``failing to 
place limitations on crop insurance subsidies and to re-attach soil 
erosion and wetland conservation requirements to crop insurance 
programs, the Committee has failed to do the full reform that is 
needed.''
    This sort of nonsense of eliminating wasteful subsidies in favor of 
another form of wasteful subsidies is nothing new in the corporate 
politically run government. I'm strongly suggesting that those on the 
committee begin to assess their level of honesty and integrity on how 
they perform their responsibilities to U.S. citizens as a whole, rather 
than maintaining a closed door policy in maintaining a system that is 
completely worthless except to those in the corporate sectors who 
continue to gain and maintain dominance in markets as well as in the 
creation of continued farming bills that exclude much needed reform in 
practices and oversight. These committees continue to be a mockery of 
the democratic process.
    One might as well call it the corporate process these days.
                                 ______
                                 
                       Comment of Alexis Buckley
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Boston, MA
    Occupation: Teacher
    Comment: Representative Capuano,

    Just a quick note to let you know that I would appreciate your 
supporting small and family farmers. Subsidizing corporate farms has 
made ``food'' more affordable, but it's also encouraged incredibly 
unhealthy practices that people ended paying for in the end with their 
health (obesity, cancer, developmental issues). These are well 
researched and well documented consequences of corporate greed. While 
at first glance supporting small, local farmers (and even urban 
farmers) may seem a costly shift, but--again--we pay for it in the end 
either way. why not go for the healthier option that can also generate 
more creative and sustainable jobs?
    Thanks for your time & consideration.
                                 ______
                                 
                        Comment of Paula Buckner
    Date Submitted: Sunday, May 20, 2012, 1:31 p.m.
    City, State: Eugene, OR
    Occupation: Retired
    Comment: Cutting funds for farms is like shooting ourselves in the 
foot. Reform now, not later! Our government mouths the words of 
promoting physical health, organic farming, yet politicians act in ways 
that undermine the very support structure that leads to the actuality 
of better collective health. ``No Hunger Allowed'' should be our motto. 
Elevating our food supply standards and maintaining them is a sign of 
progress and a wise investment.
                                 ______
                                 
                       Comment of Beth Buczynski
    Date Submitted: Friday, May 18, 2012, 2:12 p.m.
    City, State: Cheyenne, WY
    Occupation: Freelance Writer
    Comment: Farmers and eaters across the U.S. benefit from a fair and 
healthy farm bill. Yet politicians like yourself are so out of touch 
with the values of the American people, you have allowed corporate 
agribusiness to exert a stranglehold on our regulatory system. As my 
supposed representative in the House, please know that I support: The 
full endorsement of all provisions of the Local Foods, Farms and Jobs 
Act (H.R. 3286);
    Full funding of conservation programs, such as the Conservation 
Stewardship Program, and making sure that enrollment in any new 
insurance subsidies are tied directly to compliance with conservation 
programs;
    The implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236); and Maintaining the EQIP Organic 
Initiative. You were not elected to do what you and your corporate 
sponsors think is best for Wyoming. You were elected to do what the 
people want for Wyoming. Please do your job.
                                 ______
                                 
                         Comment of Susan Budde
    Date Submitted: Friday, May 18, 2012, 9:28 p.m.
    City, State: Manchester, CT
    Comment: Don't let Congress cut $4 million from organic research 
funding and cut in half funding to support Beginning Farmers. Tell 
Congress to support organics.
    Thank you!
                                 ______
                                 
                       Comment of Jennifer Buford
    Date Submitted: Friday, May 18, 2012, 9:37 a.m.
    City, State: Fort Wayne, IN
    Occupation: Marriage and Family Therapist
    Comment: Considering the recent controversy over pink slime in our 
beef, I feel it's more important than ever that local farmers be better 
subsidized, and better assisted by our government in their efforts to 
produce safe and desirable meats for human consumption. I find it 
greatly offensive that our government allow the same standards and 
practices to human nutrition as they would our dogs and cats. It is 
this type of decision making that makes the American people ever leery 
and mistrustful of its own government. It is time to stop secrets in 
food practice if the American taxpayers are funding a department to 
oversee food production on our behalf, otherwise what is the point? I 
feel the only way these issues can effectively be addressed is to help 
local farmers who focus on quality food rather than saving nickels and 
dimes.
            Respectfully Yours,

    J. Buford.
                                 ______
                                 
                         Comment of Elise Buhn
    Date Submitted: Saturday, May 19, 2012, 7:01 p.m.
    City, State: Santa Rosa, CA
    Occupation: Landscape Architect
    Comment: Please repeal unneeded subsidies for the mega producers of 
our food! It is profoundly unsafe to allow a small number of producers 
to determine our food supply. We must subsidize the beginning farmer, 
the organic farmer, the small farms and the families who have hung onto 
their heritage of farming through some really tough times. If you look 
at the origins of our presidents, a majority of them grew up on farms. 
It should be a proud occupation, not an unrewarded and despised 
occupation. Please help us all change the direction we have been 
gaining since the days of Earl Butz.
                                 ______
                                 
                          Comment of Rita Buhr
    Date Submitted: Sunday, May 20, 2012, 5:03 a.m.
    City, State: Graham, WA
    Occupation: School Assistant
    Comment: It's unthinkable what has happened to our main food supply 
with the chemicals the GMO foods etc. that we're forced to eat unless 
we can get organic. Our kids can't even think straight anymore! All 
kinds of mental health, physical and behavioral problems much due to 
the worthless foods fed to our kids! They'd be better off eating grass! 
To subsidize farmers to grow these toxic foods and not give organic 
farmers decent funding so ``we the people'' (that includes you too!) 
can have better choices, is basically criminal. Tax payers have the 
right to eat decent food! How does the government expect to have a good 
taxpaying workforce with such unhealthy food? Or is it really ok to 
just let us become more unhealthy so we have to rely on pharmaceuticals 
to perform at all. Then that helps your buddies have more profits too.
    We get it!
    Please, do the right thing!
                                 ______
                                 
                       Comment of Michael Bulger
    Date Submitted: Friday, May 11, 2012, 6:37 p.m.
    City, State: Astoria, NY
    Occupation: Student/CSA
    Comment: Thank you for taking the time to read my comments.
    My hope is that the farm bill will direct help to those who need it 
most. By this I mean curtailing benefits to wealthy farmers in favor of 
supporting small and lower-income farmers. I also mean maintaining 
nutrition programs that provide not only enough calories, but also 
healthy foods.
    An overwhelming amount of research tells us that Americans need to 
increase their consumption of fruits and vegetables. The farm bill 
should reflect this goal. The days of farm bills whose main benefactors 
are feed grains, livestock producers, and junk food, must come to a 
close.
    It's time to support real, healthy nutrition and rural Americans 
who need it most.
    Thank you.
                                 ______
                                 
                      Comment of Jennifer Bulleit
    Date Submitted: Friday, May 18, 2012, 10:13 a.m.
    City, State: Verona, WI
    Occupation: Nurse
    Comment: We are subsidizing meat, corn and soy factory farming. In 
these times of limited budgets, let's subsidize the workers, family 
farm operators, not farming corporations and subcontractors. When we 
protect the vegetable and fruit growers I will know this nation cares 
about its people.
                                 ______
                                 
                       Comment of Lindsay Bullock
    Date Submitted: Friday, May 18, 2012, 1:33 p.m.
    City, State: Olympia, WA
    Occupation: Waitress
    Comment: We need back our farmers to produce good healthy food and 
crops! We need to get back to our old ways of doing what is best for 
our land and vegetation! Independent Farmers are at our best interest 
and large money hungry company are Not! It is a shame to what the U.S. 
has become with all of these corporate companies changing our Earth! In 
the end no one should be on top and everyone should be together!
                                 ______
                                 
                       Comment of Jane Bultedaob
    Date Submitted: Friday, May 18, 2012, 5:18 p.m.
    City, State: Sequim, WA
    Occupation: Homemaker
    Comment: One day I will have grandchildren, and I want them to have 
the good food that is available if we give our farmers, and not big 
business, our support. We need to put People before Profit!
                                 ______
                                 
                        Comment of Penny Bulten
    Date Submitted: Saturday, May 19, 2012, 11:54 a.m.
    City, State: Boynton Beach, FL
    Occupation: Parent
    Comment: GMO food should be labeled, Big agribusiness should not be 
able to use regulations to shove out their smaller competitors, and 
farmers should not have to go through miles of red tape to reach their 
customers.
                                 ______
                                 
                       Comment of Suzanne Bunker
    Date Submitted: Saturday, May 19, 2012, 3:39 a.m.
    City, State: Eugene, OR
    Occupation: Educator: College
    Comment: Although I may not appear to be someone who has close ties 
with agriculture, I spent many years working as a fruit picker, 
vegetable packer and farm truck driver when I was much younger. In 
those days, questionable practices were closely scrutinized by local 
producers, communities, and buyers. Since the advent of agribusiness 
and factory farms, one can easily fear eating since questionable 
farming practices abound! I urge you to take the steps needed to ensure 
that your fellow citizens are protected from dangerous agricultural 
practices, and empower us with a future of safe, untainted food 
sources!
                                 ______
                                 
                       Comment of Laurel Bunkers
    Date Submitted: Thursday, May 10, 2012, 10:23 p.m.
    City, State: Oak Park, IL
    Occupation: Executive Assistant
    Comment: Please don't cut SNAP benefits. I volunteer one Saturday 
every month at my local food pantry, and the need is Not decreasing. 
Families tell us that the pantry, combined with the little help they 
receive from SNAP helps them be able to keep a roof over their 
families' heads. Without it, many will be sent over the brink. Please, 
don't take this away from them.
                                 ______
                                 
                        Comment of Jim Burbridge
    Date Submitted: Saturday, May 19, 2012, 4:04 a.m.
    City, State: East Greenwich, RI
    Occupation: Contractor
    Comment: The current Monsanto/corporate based FDA is 
counterproductive to health and happiness, thus un-American. 
Sustainable farming is the wave of the future.
                                 ______
                                 
                        Comment of Melinda Burd
    Date Submitted: Friday, May 18, 2012, 2:07 p.m.
    City, State: Deerfield Beach, FL
    Occupation: Manager
    Comment: Please, do not cut any funding for organic research or cut 
any funding to support beginning farmers. Please, support organic 
farming by increasing funding for research and reducing government 
subsidies for conventional farms.
                                 ______
                                 
                        Comment of Henry Burden
    Date Submitted: Sunday, May 20, 2012, 7:55 p.m.
    City, State: Havre de Grace, MD
    Occupation: Retired
    Comment: Until the nation's businesses can be persuaded to pay a 
full day's living wage to anyone who works a full day, a humane nation 
must provide the assistance that assures availability of necessary 
nourishment to all its citizens.
                                 ______
                                 
                        Comment of Susan Burden
    Date Submitted: Friday, May 18, 2012, 6:23 p.m.
    City, State: Eureka Springs, AR
    Occupation: Handmade Garment Manufacturing
    Comment: It is imperative that all the people on Earth eat food 
that is natural to the Earth's cycles of nature. The Earth does not 
belong to us, we belong to it, and we have no business altering food to 
suit agribusiness practices, especially since their practices are known 
to cause illnesses. Furthermore, agribusiness practices further 
deteriorate all other life forms and pollute drinking water. We must do 
all we can to protect water, food, and air because it is those three 
elements that give life to all. We are only hurting ourselves and 
others by eating, drinking and breathing poisons, chemicals, 
genetically altered seeds and animals. Supporting farmers who grow by 
using natural methods will be a huge step in Health Care Reform. If you 
care about the health of anything or anyone then you must get informed 
and more concerned and careful about what we eat, drink and breathe. 
Support the farmers who grow organically and the ones who do not 
pollute and poison and unnecessarily and foolishly alter nature.

Susan Burden.
                                 ______
                                 
                        Comment of Janis Burger
    Date Submitted: Saturday, May 19, 2012, 1:27 a.m.
    City, State: Port Angeles, WA
    Occupation: Park Ranger--Subsistence Gardener
    Comment: I've been trying to grow my own produce and support local 
farmers to help get healthy, local food to our community, cutting fuel 
for long-distance transport, support local jobs, preserve open space. 
This is a much more sustainable paradigm than CAFOs and agribusiness 
and subsidies for commodities that often aren't very good for us 
anyway. I hope you'll support the provisions of the Local Foods, Farms 
and Jobs Act (H.R. 3286), as well as funding for conservation programs, 
such as the Conservation Stewardship Program, and making sure that 
enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs.
    The implementation of the Beginning Farmer and Rancher Opportunity 
Act (H.R. 3236) is important for sustainability and local jobs. And as 
more of us strive to consume healthier food (for us and the land) it's 
important that we maintain the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Ben Burgess
    Date Submitted: Thursday, May 10, 2012, 11:39 a.m.
    City, State: Atlanta, GA
    Occupation: Food Bank Procurement Coordinator
    Comment: Please, Do Not cut the Food Stamps program. Too many 
people need right now! I see it every day. These aren't people gaming 
the system . . . they are people that just need help getting back on 
their feet.
                                 ______
                                 
                       Comment of Sharron Burgess
    Date Submitted: Saturday, May 19, 2012, 11:54 p.m.
    City, State: Rileyville, VA
    Occupation: Retired
    Comment: I'm in charge of a new volunteer group called Sustainable 
Shenandoah. Our garden is organic but not certified. Our growing 
standards are higher then what is classified by the government as 
acceptable.
    As a group, we have undertaken intensive studies of the present 
agriculture in this country. I am personally appalled by the condition; 
food recalls for contamination by major food companies, small farmers 
unable to compete with major agricorp, complex legislation that favors 
the major agricorp, the increased rate of diabetes, hypertension, 
cardiac disease and obesity especially the increase in younger and 
younger people.
    Enough nice talk--in a nut shell--the major agricorps are only 
interested in their bottom line, not the welfare of their customers. 
Farmers are losing their farms, the general public is getting cheap 
foods that lack the proper amount of nutrients found in organic foods 
and why--because healthy food would decrease their profits that are 
based on using chemicals.
    I often wonder what the corporate heads of the mega-agricorps eat 
and how healthy they are and how much they spend on medical care for 
themselves and perhaps their families.
                                 ______
                                 
                        Comment of Peter Burkard
    Date Submitted: Friday, May 18, 2012, 9:31 a.m.
    City, State: Sarasota, FL
    Producer/Non-producer: Producer
    Type: Fruits, Greenhouse/nursery, Poultry/poultry products, 
Specialty Crops, Vegetables, Other
    Size: Less than 50 acres
    Comment: Stop subsidizing agribusiness and producers of commodity 
crops. We are so unhealthy as a nation partly due to the ag subsidy 
system. If you are going to subsidize anybody, make it the producers of 
healthy products like fruits and vegetables and small organic farmers. 
(Note: While this is what I am, I'm not interested in any subsidies for 
myself.)
                                 ______
                                 
                        Comment of Frances Burke
    Date Submitted: Friday, May 18, 2012, 2:37 p.m.
    City, State: Davis, CA
    Occupation: Retired Farmer and Small Business Owner
    Comment: Simple changes in the farm bill could improve the health 
of Americans and improve the economy by spreading the funds to real 
people doing local business and helping on a more grass roots level. 
Feeding all taxpayer money to ADM and other Huge corporations is doing 
real working people harm. Cheap fast food and ethanol is costing us not 
helping us.
                                 ______
                                 
                         Comment of Moira Burke
    Date Submitted: Friday, May 18, 2012, 3:49 p.m.
    City, State: Dixon, CA
    Producer/Non-producer: Producer
    Type: Forestry, Livestock, Other
    Size: Less than 50 acres
    Comment: Stop subsidies to large commodity ag (ADM etc.); focus on 
helping new farmers buy land via ag conservation easements. Second, 
provide user friendly help for smaller farmers, not hurdles designed 
for larger, well funded producers. My farm is >50, forest is 471 acres.
                                 ______
                                 
                        Comment of David Burley
    Date Submitted: Friday, May 11, 2012, 11:00 a.m.
    City, State: Hammond, LA
    Occupation: Professor
    Comment: Hello,
    Please give the nation a farm bill that will put more people into 
work growing our food and one that supports farmers that grow a diverse 
amount of food sustainably. We should be encouraging and rewarding 
farmers who grow food and livestock that does not pollute the air, 
water, land and our bodies but nourishes us without chemicals. We 
shouldn't be encouraging policy that creates fewer farmers and 
encourages more use of synthetic chemicals. We also need to encourage 
the new generation of farmers who are yearning to grow food but are 
held back by such things as lack of access to land and health 
insurance. On that note, please increase funding for such things as the 
Value-Added Producers Grants Program and guarantee $25 million per year 
for the Beginning Farmer and Rancher Development Program and fund the 
Organic Agriculture Research and Extension Initiative at $30 million 
per year in mandatory funding. Thank you so much.
                                 ______
                                 
                        Comment of Retha Burnett
    Date Submitted: Saturday, May 12, 2012, 9:57 a.m.
    City, State: Garnett, KS
    Occupation: Supported Living Assistant for Developmentally Disabled 
Persons Served
    Comment: I have worked in this field for over eleven years. I do a 
lot of shopping for my folks and assist them with making their money 
stretch each month. They work in workshops and other local area jobs to 
try to supplement their disability checks but grocery prices are rising 
faster than the money they can earn. Without food stamps most of my 
folks will not be able to get the nutrition they need to be healthy. 
Before coming to my job I currently hold, I ran a licensed daycare for 
over 18 years. I know about nutrition and how important to have the 
right amount of protein, carbs, and fats a individual needs to be 
healthy. With the proposed cuts my folks WILL NOT be able to have their 
nutrition needs met. Please don't put that burden on organizations and 
churches that are barely surviving themselves. My folks did not ask to 
be born with their disabilities. They fight every day to survive until 
the next day. They are my angels here on Earth. I work for a low wage 
even thou I have been at my job for over 11 years. I struggle to make a 
living out of low wages but to see their smiles each day brings 
sunshine to my life each day. I am so proud of them and they are the 
real heroes. Please consider those who by no fault of their needs these 
programs such as SNAP. Thank you for taking your valuable time to read 
this plea.
            Sincerely,

Retha Burnett.
                                 ______
                                 
                        Comment of Deborah Burns
    Date Submitted: Friday, May 18, 2012, 10:02 a.m.
    City, State: Williamstown, MA
    Occupation: Book Editor
    Comment: As a book editor overseeing books on farming, I am 
witnessing a groundswell of interest in small farms--from both 
producers and consumers. Our area of Mass. is still rural, and a 
revival of the local food system will help all levels of the community 
access fresher food and keep farmers on the land, which has inestimable 
benefits. I urge you to approve the aspects of the farm bill that will 
support small farmers, moderate-sized farmers, beginning farmers, 
sustainable farming, nutrition programs, and the health of our 
environment--in other words, a fair and healthy future for all 
involved.
                                 ______
                                 
                        Comment of Edward Burns
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: Ocala, FL
    Occupation: Retired
    Comment: Your proposed subsidized insurance program will allow 
giant commodity farmers and insurance companies to walk away with 
billions in taxpayer dollars while putting the land, soil and 
environment at greater risk.
    We don't need more pesticide/herbicide laden foods by the giant 
monopolies. We need healthy organic foods that our small farmers grow. 
They are the ones that need your help and protection!
                                 ______
                                 
                        Comment of George Burns
    Date Submitted: Friday, May 18, 2012, 7:37 p.m.
    City, State: Loysville, PA
    Occupation: Retired
    Comment:

    1. Support food democracy.

    2. Support all measures that facilitate local farmer successful 
        operations without intrusive and expensive government 
        regulations.

    3. Support legitimate measures that facilitate organic food 
        production, advertising and sales.

    4. Support measures that streamline government agencies providing 
        regulations and oversight of American farmers.

    5. Eliminate illegitimate farm subsidies.

    6. Eliminate cozy relationships between large corporate farms and 
        their suppliers and Federal congressional and administrative 
        agencies. Protect local, small family farmers from excessive 
        government intrusion. It is big business farms and food 
        processing facilities that cause the vast majority of food 
        contamination; not small/local farms. In fact, supporting 
        small/local farms is the best means to contain any such 
        outbreaks.
                                 ______
                                 
                         Comment of Jeff Burns
    Date Submitted: Saturday, May 19, 2012, 2:02 a.m.
    City, State: Van Nuys, CA
    Occupation: Retired
    Comment: Stop subsidizing corn and other food exports that destroy 
small farmers in foreign countries. Stop subsidies to large corporate 
farms and support small family farms. Support non-GMO and Organic 
producers. Stop the contamination of heirloom crops by GMO's.
                                 ______
                                 
                         Comment of Scott Burns
    Date Submitted: Tuesday, May 15, 2012, 8:03 p.m.
    City, State: Franklin, NC
    Producer/Non-producer: Producer
    Type: Other
    Size: 151-300 acres
    Comment: As a healthy food consumer and producer of food for myself 
and close friends I want to give some input on what values I place in 
our farm bill! I am drawing upon a friend's research but would like to 
share these three ideas with you as to how money shou1d be appropriated 
for the bill that I feel is Most important.
    Here are three suggestions!

    1. Community Food Projects Program--$10 million per year to help 
        communities build food self-reliance.

    2. Farmers Market and Local Food Promotion Program--$20 million per 
        year to develop farmers market capacity and create food hubs to 
        connect farmers with schools, hospitals, grocery stores and 
        other markets.

    3. Hunger-Free Community Incentive Grants--An average of $20 
        million per year for a new SNAP local fruit and vegetable 
        incentive grant program at farmers markets and other healthy 
        food retailers.
                                 ______
                                 
                 Comment of Michael R. Buron, Sr., IHHP
    Date Submitted: Saturday, May 19, 2012, 8:36 a.m.
    City, State: Forked River, NJ
    Occupation: Holistic Health Practitioner
    Comment: Dear House Agriculture Committee,

    I am a Healthcare Professional who works with local Doctors in my 
area. I see their patients and help them with chronic health 
complaints. The first item on the agenda is the quality of their food. 
The best solution to this is to introduce them to local farmers who are 
following the principles of organic farming. It is unfortunate that the 
Government only allows to subsidize commercial farming of crops such as 
the conventional faming of soy and corn, in order to artificially lower 
the cost of these foods. You are in essence supporting the destruction 
of our soils by allowing mono cropping and the use of harmful 
fertilizers, pesticides, herbicides, and fungicides, all of which 
encourage soil depletion and contamination of our food supply and 
environment.
    I urge you to consider the fact that without proper stewardship of 
the land, as promoted by organic farming, the U.S. will continue to 
lose farmable land and increase our reliance on outside sources to feed 
our own citizens. It is impossible to produce healthy crops or animals 
from depleted, polluted soils. It is the subsequently impossible to 
have a healthy population from eating depleted, poisoned crops and sick 
animals.
    Please do not let the large lobbying groups cloud your vision on 
what is best for the people. After all, you are supposed to represent 
the masses of voters, not large corporations only concerned with profit 
and not health.
            Respectfully yours,

Michael R. Buron, Sr., IHHP.
                                 ______
                                 
                        Comment of Kelly Burrell
    Date Submitted: Saturday, May 19, 2012, 6:16 p.m.
    City, State: Bristol, CT
    Occupation: Retail
    Comment: We need to preserve, help & fund sustainable agriculture, 
not make cuts in these areas. Agribusiness can afford to fend for 
itself and is not looking out for the best interests of the people. 
Local, organic farmers are. Our future lies with them. The only way we 
are going to get healthy is to stop eating factory farmed products and 
get back to eating healthy animals and organically grown, non-GMO 
fruits & vegetables. Please support local agriculture.
                                 ______
                                 
                        Comment of Kathy Burrow
    Date Submitted: Friday, May 18, 2012, 11:40 p.m.
    City, State: Elkhorn, NE
    Occupation: Residential Manager/Social Services
    Comment: Dear House Agriculture Committee,

    As a lifetime resident of Nebraska and a concerned parent, I am 
contacting you in regard to the farm bill issue. In my opinion it is 
extremely important to end subsidies for the large corporate 
agricultural operations which are making huge profits and focus on 
helping out the family farmers who desperately need the assistance in 
order to be able to continue to make a livable income in the face of 
large scale competition. Our great state has a long standing heritage 
of family farms which has helped make us the proud hard working people 
we are today. We have an obligation to stand by the family farms in our 
state and making them our top priority. Without this approach the 
jobless rate in our area will only worsen as farmers leave farming 
because they can no longer make enough money to support their families.
    Thanks for your thoughtful consideration of this matter.
            Sincerely,

Kathy Burrow.
                                 ______
                                 
                        Comment of Mary Burrows
    Date Submitted: Friday, May 18, 2012, 10:32 a.m.
    City, State: Reno, NV
    Occupation: Artist
    Comment: It's time to get smart about food and do what's right for 
the people . . . not corporations. After becoming a parent, I've 
educated myself and have come to realize that large corporations are 
controlling the food system and the majority of the United States 
doesn't know what real food is. We can change this and it can start 
with you. Please educate yourself as much as you can as to the harms of 
factory farming, pesticides, GMOs, and fake food. Our people and 
farmers (not corporations) deserve better, as well as our animals. 
Thank you!
                                 ______
                                 
                        Comment of Alan Burstein
    Date Submitted: Wednesday, May 09, 2012, 6:52 p.m.
    City, State: Austin, TX
    Occupation: Certified Internal Auditor
    Comment: Please help the poor and hungry with the farm bill. There 
are millions of people (including me) who are still unemployed. I have 
not had a job in 8 months. Please, please do not cut funds from the 
hungry and poor--its just wrong. We are hungry enough as it is.
    Thank you.
                                 ______
                                 
                        Comment of Mimi Burstein
    Date Submitted: Friday, May 18, 2012, 6:56 p.m.
    City, State: Paoli, PA
    Occupation: Librarian
    Comment: I am very concerned that programs to conserve land and 
water resources are fully funded and that all efforts are made to 
ensure cooperation with conservation efforts by all those involved in 
agricultural businesses. Also, I strongly support any and all efforts 
to fund research into organic farming practices. American citizens care 
very much about healthy food, safe water and protections for our land, 
and if damage to these resources is allowed to go unchecked, those of 
you who have permitted this to happen will be held to account by the 
electorate.
                                 ______
                                 
                        Comment of Gerri Burton
    Date Submitted: Friday, May 18, 2012, 5:15 p.m.
    City, State: Bryn Mawr, PA
    Occupation: Retired
    Comment: Everyone in the U.S. benefits from a fair farm bill. 
Cutting funding to vital programs that ensure access to nutritional 
diets and cutting funding for organic and sustainable agriculture is 
penny-wise and pound foolish.
                                 ______
                                 
                         Comment of Kate Burton
    Date Submitted: Friday, May 18, 2012, 3:43 p.m.
    City, State: Vancouver, WA
    Occupation: School Librarian
    Comment: As big agribusiness pushes out the little farmer and as 
bio and chemical engineered crops pollute our environmentally sound 
crops, we need to support the small farms by protecting their rights. 
Please do not encourage large corporate farms to change the dynamics of 
farming in a way that will be detrimental to the land, our seeds and 
the small farmers who struggle to make ends meet. The number of unique 
species is shrinking as we succumb to uniform crops planted by mindless 
corporations. We need ensure that we continue to promote a rich seed 
base and that we eliminate chemically altered and bio engineered crops 
that limit the crops we have and will potentially one day jeopardize 
farming. As we alter crops with chemicals, we also alter the pests who 
attack these crops. If our crop pool is limited and the pests are 
hardy, we could come up with a situation where we can no longer provide 
a quality food product. Our actions have consequences and we need to 
consider them.
                                 ______
                                 
                       Comment of Mark Burwinkel
    Date Submitted: Friday, May 18, 2012, 2:01 p.m.
    City, State: Cincinnati, OH
    Occupation: Retired Veteran
    Comment: Please support organic and small local farming. Don't cut 
$4 million from organic research funding and cut in half funding to 
support Beginning Farmers. Oppose GMO's and genetic pollution and 
Monsanto suing for genetic pollution.
                                 ______
                                 
                          Comment of Jeff Bush
    Date Submitted: Saturday, May 19, 2012, 2:41 p.m.
    City, State: Yoncalla, OR
    Occupation: Anthropologist
    Comment: Corporations have too long dominated our farming and 
industrial infrastructure. It has lead to a serious disregard for the 
public's health, our ecology and economy. We need to get money and 
power back in the hands of small farmers and businesses who have a 
genuine concern for the physical and economic health and well being of 
the people of this country.
    Let's get our priorities straight. We broke away from Britain a 
little more than 200 years ago not only because of the king's taxes, 
but because of corporate abuses. We have already fallen into the same 
trap, and now we must get out of it.
    Agribusiness neither deserves nor needs our money and should be cut 
off cold. Put that money into the hands that really need it and will do 
some good with it.
                                 ______
                                 
                         Comment of Sarah Bush
    Date Submitted: Friday, May 18, 2012, 11:44 a.m.
    City, State: Belmont, MA
    Occupation: Business Owner Of Healthcare Business
    Comment: Please act on the behalf of us citizens who care about the 
future for our children. Act on the behalf of creating sustainable and 
healthy sources of food so that we can engineer our future and make it 
want we want it to be rather than having the environment fight back at 
us in the form of disease, mal-nutrition, poor soil quality. Please 
seize this opportunity to lay good agricultural plans for our future 
that are safe, responsible and sustainable. Please! The time has come!
            Thank you,

Sarah Bush.
                                 ______
                                 
                        Comment of Bryan Bushley
    Date Submitted: Friday, May 18, 2012, 1:56 p.m.
    City, State: Honolulu, HI
    Comment: We need to be promoting more healthy, sustainable choices 
for our agriculture, while supporting more small and medium sized 
farmers. Maintaining strong support, incentives and programs to ensure 
nutrition, conservation and organic agriculture. Please support these 
measures in the farm bill!
                                 ______
                                 
                    Comment of Martha W.D. Bushnell
    Date Submitted: Thursday, May 10, 2012, 5:16 p.m.
    City, State: Boulder, CO
    Occupation: Homemaker
    Comment: Please pass a strong farm bill that protects programs like 
SNAP, TEFAP, and CSFP which help provide food for millions of America's 
most vulnerable children and seniors.
    Please ensure that no millionaires receive farm subsidies. The cut 
off point for farm subsidies should really be $250,000. That is cut off 
farm subsidies for all farmers making more than $\1/4\ million.
                                 ______
                                 
                        Comment of Niles Busler
    Date Submitted: Friday, May 18, 2012, 9:23 p.m.
    City, State: Townsend, MA
    Occupation: Real Estate Broker
    Comment: If the government puts corporate interests above the 
people (consumers) then eventually both will lose. The government must 
regulate the ambitions of corporations to ``promote the general 
welfare'', as mandated in our Constitution. Individual citizens 
generally have only one weapon against corporate greed their elected 
representatives. If our elected representatives won't do the job we 
elected them to do, then we will need remove them by election and 
replace them with more responsive politicians.
                                 ______
                                 
                       Comment of Justin Buswell
    Date Submitted: Friday, May 18, 2012, 1:33 p.m.
    City, State: Oceanside, CA
    Occupation: Sales
    Comment: Our food should be safe from the use of harmful chemical 
of any type at any level. Animals should be treated humanely with 
pasture and space as well as sun and air. They should have much room to 
roam. Really our food should be produced just like the advertising we 
get with it shows. Smiling cows and open fields. Really it should be 
common sense.
                                 ______
                                 
                        Comment of Alison Butler
    Date Submitted: Tuesday, May 15, 2012, 8:47 p.m.
    City, State: Portland, OR
    Occupation: Resource Specialist for Community College Students
    Comment: Our students depend on programs like SNAP to feed their 
families. While I do not support farm subsidies to large corporate 
farms, I believe the supplemental nutrition programs are crucial.
                                 ______
                                 
                       Comment of Christin Butler
    Date Submitted: Sunday, May 20, 2012, 11:08 a.m.
    City, State: Columbus, OH
    Occupation: Teacher
    Comment: I'd like to see more support for small family farms that 
serve local markets and less support for industrial scale farms.
    Thanks, and please keep us eaters in mind. We want access to fresh, 
healthy, and local food for our families.
                                 ______
                                 
                      Comment of Elizabeth Butler
    Date Submitted: Friday, May 18, 2012, 4:25 p.m.
    City, State: Henderson, KY
    Occupation: Computer Administrator
    Comment: Priority needs to be given to small producers, family 
farms, and organic farming.
    Large subsidies to big industrial ag firms and absentee landlords 
are a waste of taxpayer dollars and eliminating them is a good way to 
reduce the deficit.
                                 ______
                                 
                         Comment of Lisa Butler
    Date Submitted: Friday, May 18, 2012, 12:27 p.m.
    City, State: St. Cloud, FL
    Occupation: Realtor
    Comment: Please stop this tyranny!
    Please stop agenda 21, which is ultimately what this issue and many 
others is all about!
    Please stop trying to kill your fellow humans with poisons . . . 
GMO's . . . pharmaceuticals . . . pesticides . . . chemtrails that are 
intentional spraying of toxins and metal particles into the atmosphere!
    We want organic food and labeling of GMO's and all other toxic 
ingredients, including hormones injected into anything!
    At least 40 countries are treating their citizens better than the 
us government is treating citizens here! Reps have forgotten their oath 
of office and that they work for we the people . . . not ``them.''
    Bring on peace & unity and kick greed to the curb . . . no, kick it 
off the planet! It is time to let love rule and freedom reign for Earth 
and all inhabitants! (Bold used for emphasis, never yelling)
                                 ______
                                 
                       Comment of Rebekah Butler
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Branford, CT
    Occupation: Photographer
    Comment: Our basic survival needs are clean water and clean food. 
Without proper funding, education and support for our country's 
farmers, citizens and political leaders, we will most certainly be 
negatively affected and suffer the consequences. It is due time to 
praise our farmers and advocate for a healthy food and agricultural 
industry if we are to prevail in the future.
                                 ______
                                 
                        Comment of Shelby Butler
    Date Submitted: Friday, May 18, 2012, 8:59 p.m.
    City, State: Jackson, MS
    Occupation: Middle School Teacher
    Comment: I wish the farm bill wasn't so focused on corn and soy and 
instead looked to promoting smaller family farms that produce 
vegetables. I am particularly interested in supporting more sustainable 
farming practices.
            Thank you,

Shelby.
                                 ______
                                 
                      Comment of Lisa Butterfield
    Date Submitted: Friday, May 18, 2012, 7:02 p.m.
    City, State: Eureka, CA
    Occupation: Retired Educator
    Comment: I live in a rural county with many small family farms. Our 
children need to grow up knowing that there is a place for them and a 
meaningful life available working on a small family farm.
                                 ______
                                 
                        Comment of Lisa Buzzard
    Date Submitted: Saturday, May 19, 2012, 1:32 p.m.
    City, State: Winston-Salem, NC
    Occupation: Consumer
    Comment: Please . . . Please . . . Protect our country! I believe a 
sustainable healthy and as close to natural (Organic) farming is the 
only way to ensure our health and safety.
    These are the topics I hope you will support!

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I feel support for organic farming is vital and would provide jobs 
for many as more small family farms could thrive! Our rural areas 
should be preserved and cherished.
    And an aside Please Label all GMO food! I am not a guinea pig! 
Thank you
            Sincerely,

Lisa Buzzard.
                                 ______
                                 
                        Comment of Robert Byers
    Date Submitted: Saturday, May 19, 2012, 6:56 p.m.
    City, State: Spring, TX
    Occupation: Purchasing
    Comment: I would like to see organic farming as a priority in this 
bill for our citizen's good nutrition and health. Please prune the Big 
Ag subsidies and instead focus upon real capitalistic approaches such 
as correct labeling (i.e., Genetically Modified) so that consumers can 
purchase correctly with full knowledge of what they are purchasing. Let 
the markets show how well capitalism can work by leveling the playing 
field in the food business--reward hard working organic farmers with 
their outstanding food products, and stop subsidizing Big Ag through 
tax payer subsidies. Thanks.
                                 ______
                                 
                        Comment of Dorothy Byrne
    Date Submitted: Friday, May 18, 2012, 2:11 p.m.
    City, State: Port Townsend, WA
    Occupation: Retired
    Comment: Stop subsidizing corn. It's poisoning our food supply, 
creating obesity. National public health problem. Stop being owned by 
Monsanto. It's a disgrace. Watch your votes because I am. I do not 
trust anything but local organic and local meat eggs. I won't be 
poisoned but what about my neighbors who are brain washed to eat 
according to ag. profit pyramid that promotes vested interests not 
health, e.g., sugar, grains full phytic acid. I could go on and on.
                                 ______
                                 
                       Comment of Mary Jane Byrne
    Date Submitted: Friday, May 18, 2012, 1:22 p.m.
    City, State: Norfolk, NY
    Occupation: Retired Teacher
    Comment: I want to have the healthiest, most chemical free food 
possible to be available for consumers. It is often scary to realize 
what is being sold to us in our stores that we think should be healthy 
and isn't. Please do whatever is necessary to protect us. Thank you.
                                 ______
                                 
                            Comment of M. C.
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Snelling, CA
    Comment: Please support organic farming, we need non-GMO food 
production. The big agricultural businesses have more than enough money 
and support to go around, organic farmers struggle far too much. Thank 
you.
            Sincerely,

M. C.
                                 ______
                                 
                            Comment of R. C.
    Date Submitted: Friday, May 18, 2012, 4:10 p.m.
    City, State: Ashland, OR
    Occupation: Retired
    Comment: Our Country Needs to go Organic! No GMO foods should be 
allowed, Ever, anywhere! Check the records . . . GMO foods are Not 
healthy, but, just the opposite. America needs to Wake Up!
                                 ______
                                 
                       Comment of Judith Cabanaw
    Date Submitted: Friday, May 18, 2012, 10:16 p.m.
    City, State: New Boston, MI
    Occupation: Retired Nurse
    Comment: A good organic farm bill would support organic farmers and 
make it worth their while to grow clean pesticide free, Non-GMO crops/
Tax break would help them/Stop accepting lobby money from Monsanto and 
others who would destroy our health with pesticide and GMO laden foods. 
Label our food with clear, honest facts, if it has GMO products in it 
Label It as such. Some will choose to buy it anyway, but we need to 
know what we are eating and we will be healthier for it. Thank you.
                                 ______
                                 
                       Comment of Sarah Cadorette
    Date Submitted: Friday, May 18, 2012, 4:43 p.m.
    City, State: Shoreview, MN
    Occupation: Teacher
    Comment: Please consider the impact of slashing funding for food 
stamps assistance, a critical component of supporting the citizens in 
most dire need and keeping many out of certain poverty, which in turn 
impoverishes the nation. I support all parts of the Local Foods, Farms 
and Jobs Act (H.R. 3286), and would rather see money spent on support 
for new and organic farmers than to give further subsidies to farmers 
who grow useless commercial crops, such as corn and rice (which are 
often just dumped as international aid, anyway, a benefit neither to 
our country nor the ones receiving grains they often don't consume). 
Thank you for your time.
                                 ______
                                 
                        Comment of Deborah Cady
    Date Submitted: Saturday, May 19, 2012, 1:16 p.m.
    City, State: Manchester, CT
    Occupation: Retired
    Comment: Please do not cut finding for Organic Research. This 
research has much more long term benefit to human welfare, including 
your children and grandchildren, than the dangerous and destructive 
methods of Industrial farmers or planters who subscribe to Monsanto-
like GMO crops.
    Farming with sustainable methods is the future. Think of providing 
your off-spring with cancer-free, neurologically healthy lives and 
promote chemical-free farming and food.
                                 ______
                                 
                       Comment of Elisa Cafferata
    Date Submitted: Wednesday, May 09, 2012, 1:22 a.m.
    City, State: Reno, NV
    Occupation: Women's Health Care
    Comment: Our health centers see over 50,000 clients a year in 
Nevada. Almost all of them are without insurance and struggling to make 
ends meet. Now, more than ever, the direct services our patients 
receive--including SNAP--are critical to their families' health and 
survival. Please protect our clients.
                                 ______
                                 
                       Comment of Ariel Caldwell
    Date Submitted: Wednesday, May 02, 2012, 2:47 p.m.
    City, State: Stone Mountain, GA
    Occupation: Student
    Comment: As you the next farm bill is being considered I would 
really like you to keep in mind U.S. minorities and young adults. 
Currently, the next farm bill is doing little to support these two 
demographics. The funding for Beginning Farmer and Rancher Development 
Program is inadequate and must be increased if we are to have proper 
support. Further, minorities are only increasing in terms of U.S. 
population, therefore, they should be supported as they will become, 
and already are, the new backbone of America.
    Also, I really support the current proposed reforms to commodity 
subsidies that would replace the automatic direct payments with a 
shallow loss revenue-based payment. Thank you for your time.
            Sincerely,

Ariel.
                                 ______
                                 
                     Comment of Constance Caldwell
    Date Submitted: Saturday, May 19, 2012, 12:27 a.m.
    City, State: Asheville, NC
    Occupation: Bookseller
    Comment: American food should be sustainably good. We work hard and 
need to insure our diet be one with health objectives and to be good 
fuel for our bodies. Good rules for healthy food is a must!
                                 ______
                                 
                       Comment of James Callaway
    Date Submitted: Friday, May 18, 2012, 2:45 p.m.
    City, State: Franklin, TN
    Occupation: Botanical Processing
    Comment: It is crucial that we craft an agricultural future that 
reflects the needs and desires of the public as well as the stewardship 
of our Earth and its resources. Organic and natural farming should be 
encouraged both as essential for quality food production and as a job 
creating enterprise. There is no excuse for not labeling GMO crops. The 
feeling is that our government has sold out to Monsanto and other big 
ag businesses.
    You have the opportunity to be part of a solution. Please don't let 
it pass you by.
                                 ______
                                 
                        Comment of Tracy Callow
    Date Submitted: Saturday, May 12, 2012, 3:08 p.m.
    City, State: Wimberley TX
    Occupation: Graphic Designer
    Comment: My family relies heavily upon the local farmers to bring 
fresh, healthy organic produce to our table daily. Every year, more and 
more of our local farmers are driven out of business because it's so 
difficult to compete with the Agri-giants, funded by our government. 
They are the same ones polluting our waterways, clogging our system 
with Genetically Modified Organisms (to which my kids are allergic), 
and driving out existence varieties of vegetables due to their large 
scale monoculture. Our fine country desperately needs a farm bill that 
invests in the next generation of farmers and ranchers--not the rich 
Agri-giants--by guaranteeing $25 million per year in mandatory funding 
for the Beginning Farmer and Rancher Development Program. A strategy 
and commitment to support beginning farmer and ranchers entering 
agriculture is desperately needed. With an aging farm population, now 
is the time to invest in the future of American agriculture by 
nurturing new agriculture start-ups and supporting the small farmer 
more than the large farming corporations.
                                 ______
                                 
                      Comment of Roderick Calloway
    Date Submitted: Friday, May 18, 2012, 10:25 a.m.
    City, State: Frederick, MD
    Occupation: Retired Pilot
    Comment: The most important issue related to farming in this 
country is the strangle hold Monsanto has on the Legislators in 
congress. Family farms are becoming Extinct because Monsanto GMO seeds 
can unintentionally infect natural farms, thereby allowing Monsanto the 
right to sue otherwise innocent farmers of patent infringement. If you 
allow this monster to continue, your children will and grandchildren 
will become forever mutated from eating mutated foods. (A hint to the 
wise is sufficient).
                                 ______
                                 
                       Comment of Lester Caltvedt
    Date Submitted: Friday, May 18, 2012, 12:27 p.m.
    City, State: Elmhurst, IL
    Occupation: Professor
    Comment: I urge you to support organic and healthy agriculture. We 
buy only organic, if the products are available. We are in a health 
crisis, which is much worse than the deficit issue!
                                 ______
                                 
                       Comment of Dorothy Calvani
    Date Submitted: Thursday, May 17, 2012, 6:46 p.m.
    City, State: New York, NY
    Occupation: Nurse
    Comment: Our 2012 Farm Bill needs reforms that will:

  <bullet> Ensure a sustainable future for American agriculture

  <bullet> Create jobs and spur economic opportunities

  <bullet> Equip rural communities for the 21st century

  <bullet> Level the playing field for producers

  <bullet> Support innovation for tomorrow's farmers

  <bullet> Protect our natural resources

    Thank you.
                                 ______
                                 
                     Comment of Christopher Camera
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Columbus, OH
    Occupation: Business
    Comment: I am a veteran who served honorably in the military and 
comes from a long line of American patriots--dating back to the 
founding of this country and work with other such people who feel the 
same as me.
    Stop corporations that are slow-killing the American people. Stop 
Monsanto and Dow from poisoning us--or else we will demand that they 
and you be forced to eat the GMO food yourselves. Why is does the 
Federal government raise the radiation levels of what is considered 
safe, thousands of times after Fukishima? Why are the Federal 
government and media covering up the massive fallout occurring and 
building up in the U.S. food, water, and air supply? Why are the 
leaders letting people be poisoned and die from this radiation and 
telling the people who they are supposed to serve? What do we need to 
do--start measuring ourselves all the radiation so we have it 
documented and then have a trial to try all our so called leaders for 
manslaughter and collusion with the monopolies? Once found guilty, the 
just punishment would be for those public servants to be forced to eat 
the GMO radiated food and water and not have any other options--like 
many poor people do not these days, after the monopolies in the banks 
have deliberately gambled away $1 quadrillion and then expect the 
taxpayers to bail them--so they can continue crushing small businesses 
and any sense of a free market.
    You're our public servants--not our kings--and we do not serve 
you--you have the honor of serving us. Do your jobs! The research from 
Dr. Don Huber and many others shows that GMO's cause organ damage and 
infertility. Why were there no safety studies done before putting this 
on the market--are you colluding with elites to kill us? Why are 
European countries, that are in many scientific areas much more 
advanced than the U.S., protecting their citizens from this poison 
while Americans are being poisoned? Any and all Federal officials in 
any three branches will be held accountable to the American people and 
God Almighty for any and all approval of letting this happen. May the 
Lord deal with you ever so severely if you do not start protecting the 
people like your supposed to do.
                                 ______
                                 
                       Comment of Annika Cameron
    Date Submitted: Friday, May 18, 2012, 4:33 p.m.
    City, State: New York, NY
    Occupation: Artist
    Comment: THE most important issue to me has become FOOD. In a 
country where supposedly we have no want for food availability and 
options, I have found that I worry about it more than anything else. I 
will not eat food that someone has compromised for their own gain. I 
will not allow my children to be guinea pigs of profiteers.
                                 ______
                                 
                     Comment of Christopher Cameron
    Date Submitted: Saturday, May 19, 2012, 1:26 p.m.
    City, State: Seattle, WA
    Occupation: Preschool Teacher
    Comment: I believe that nutrition is the first and foremost 
strength of a people. We're either living well together or suffering 
heedlessly. Funding health supplies both direct, and more importantly, 
indirect and long-lasting/long-term benefits which gives rise to a 
system of vigor and high function rather than one that becomes sick and 
seeks (as we begin to do) to self-annihilate/sabotage/depreciate.
                                 ______
                                 
                        Comment of Karen Cameron
    Date Submitted: Friday, May 18, 2012, 2:40 p.m.
    City, State: Seattle, WA
    Occupation: CFO
    Comment: Please stop funding the agricultural status quo and start 
funding local, sustainable, organic farming, conservation and 
education. Corporate agriculture and our corporate food culture are 
destroying our top soil and polluting our rivers, devastating the 
health of our people and driving up medical costs for preventable 
``lifestyle'' diseases. Please stop bowing to big money and start 
leading our country to a better place.
                                 ______
                                 
                        Comment of Sally Cameron
    Date Submitted: Friday, May 18, 2012, 11:21 a.m.
    City, State: Rancho Santa Margarita, CA
    Occupation: Chef, Food Blogger, Health Coach
    Comment: You must make the farm bill work, not for big agriculture 
and big government, but for all of America and the people who count on 
good food for their families. This Must change! Please, fight to make 
it happen!
                                 ______
                                 
                         Comment of C.H. Cammon
    Date Submitted: Sunday, May 06, 2012, 11:47 a.m.
    City, State: Atlanta, GA
    Occupation: Senior Community Service Coordinator
    Comment: Why is there a proposed budget cut?
    Has the Food Stamp budget decreased? If so, why are there 
advertisements encouraging seniors to apply?
    If there is a budget issue, why not limit what participants can 
purchase? Presently, no non-food items can be purchased. What about 
excluding Shrimp, Lobster, Crab, T-Bone Steaks, Prime Ribs, Standing 
Rib Roast, high end food items. The ``working people'' who works 365, 
are surviving on group beef, pork, chicken and just plain fish. What 
about all the junk food? There should be a listing of what nutritious 
items that can be purchased. I agree that we should help the needy with 
their nutritious needs, but I believe also that there should be some 
type of control as to what can be purchased.
    I believe that if the distribution of the food benefit would return 
to the way that the Government Commodities were given many years ago, 
more people would find jobs.
    We complain about people being over-weight, a lot of people are 
eating very well . . .
    I agree that many individuals need support, but some do not, there 
are holes in the system and some fall in and never come out. Some 
people have been receiving and not needing . . . but dressing better, 
eating better and bragging about how they're getting over on the system 
. . . something is wrong, and the real needy are being left in the 
behind.
    I believe that the minimum benefit for seniors 65 and over with low 
income should be $25.00, and they should not have to provide any type 
of bills . . .
    Do the policymakers really know and understand what is going on in 
the ``valley of truth''? Do the policymakers really care?
    Why not set up focus group sessions to get opinions? I would 
definitely love to voice additional opinions and suggestions.
    When can the public meet before the Members of the House Committee 
on Agriculture?
    Thank you.
                                 ______
                                 
                         Comment of David Camp
    Date Submitted: Saturday, May 19, 2012, 6:52 p.m.
    City, State: Bellingham, WA
    Producer/Non-producer: Producer
    Type: Forestry, Fruits, Greenhouse/nursery, Vegetables
    Size: Less than 50 acres
    Comment: Please use the power of government to foster and protect 
small local farmers. Agribusiness doesn't need subsidies; agribusiness 
should sink or swim without government assistance.
    And re-legalize hemp! What kind of evil monopoly capitalist 
endeavor would ban it in the first place? Why don't you start 
representing the people and not the monopoly capitalists who buy you 
your jobs?
    Systematic corruption is hard to overcome but don't you have any 
moral compass at all?
                                 ______
                                 
                       Comment of Benita Campbell
    Date Submitted: Friday, April 27, 2012, 9:00 a.m.
    City, State: Burgettstown, PA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: First of all, separating us into producers and non-
producers is very divisive. There are wealthy individuals who farm just 
enough parcels on their estates only for the purpose of subsidies. 
Second, I'm concerned about heartless politicians who magically believe 
that further restricting food stamps to people, some whose only income 
is food stamps, will make hunger go away. Perhaps these politicians 
think hunger in America is fine as long as we don't pay attention to 
it. As long as we continue to grind down the economy with budget cuts, 
hunger will rise.
                                 ______
                                 
                     Comment of C. Martin Campbell
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: Draper, UT
    Occupation: Scuba Instructor/Scuba Business Owner
    Comment: You only need to see the proliferation of organic produce 
in your local supermarket to realize this is a wonderful & sustainable 
practice. Please do the right thing here folks. Make your children 
proud of you. Thanks!
            Sincerely,

C. Martin Campbell & Family.
                                 ______
                                 
                       Comment of Holly Campbell
    Date Submitted: Friday, May 18, 2012, 12:41 p.m.
    City, State: Athens, GA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: To whom it may concern:

    All people deserve fresh, clean, healthy food. As the public wakes 
up to the practices of modern agriculture: eroded soils, polluted 
water, GMO crop dangers, degraded wildlife and ecology, and spikes in 
human illness, there is a demand for alternatives to these outmoded 
practices. People want organic agriculture (as evidenced in its 
exponential market growth) and the demand for buying local, chemical 
free produce, humanely raised meats & eggs, and from farms committed to 
wisely using their natural resources has continued to increase. The 
market is there, the farms are there, but we need to support this 
movement equally to modern agriculture.
    Organic agriculture is the future of farming. Fund the future, not 
the practices that are harming our future, like modern agriculture. We 
need to funnel significant farm bill funds towards the public's 
interest, not the corporate interest. Please support organic 
agriculture and sustainable natural resource management for equal if 
not greater funding in the upcoming farm bill, because it is the 
future. We need to better support, financially shaping that future 
today.
            Warmly,

Holly Campbell.
                                 ______
                                 
                        Comment of Sue Campbell
    Date Submitted: Friday, May 18, 2012, 12:29 p.m.
    City, State: Blue Ridge, GA
    Producer/Non-producer: Producer
    Type: Field Crops, Fruits, Livestock, Vegetables
    Size: 50-150 acres
    Comment: Folks, I'm a 51 acre farm owner in a rural area of 
Southern Appalachia. What little I know and understand of the politics 
of addressing farm issues, I plead with you to keep the small scale 
farmers assisted and not threatened by the `big boys'. Also important 
for you to consider (on behalf of the small farmer) is the threat of 
the `big guys' in their crowding out the small farmer with GMO tactics 
that are dangerous to the basic food quality for the people to eat as 
well as to the livelihood of us farmers. Not only scary, there reeks of 
political favors and all the side issues of power-plays the small 
farmer has no `in' to counter. We are all too darn busy keeping going!
    Having been born and raised in rural Indiana, I know of relatives 
who have `sold out' to the `big guys' for the money and increased crop 
production--at the expense of health and who knows `what' for future 
generations. Most of the folks I know (here and in Indiana) are not 
educated to what they are doing in the long run to jeopardize 
generations of people. Too much goes on over the heads of the common 
man.
    As an overall plea, Please consider the welfare of basic farming 
practices without cow-towing to the `big guys' promoting poisons and 
pesticides and GMO's. We farmers are an independent bunch, hard-
working, and honest. We provide sustainable methods and quality food. 
That's the bottom line in deciding where to go from here!
    Thank you so much for allowing this forum that I hope is earnest 
and not just a placating measure.

Sue Campbell.
                                 ______
                                 
                       Comment of Susan Campbell
    Date Submitted: Thursday, May 10, 2012, 5:19 p.m.
    City, State: Oak Park, IL
    Occupation: Healthcare IT Analyst
    Comment: Dear Representative Davis,

    Please fight hard to reverse any cuts made to the SNAP program in 
the farm bill. I volunteer at my local food pantry and I see the people 
this program helps every month. My understanding is that this is a 
well-run program and that the money spent in our communities has a 
positive ripple effect. I know that we have to get our fiscal house in 
order, but it does not reflect well on us to balance our books on the 
backs of the poor when we are unwilling to raise taxes or close tax 
loopholes for those with influence.
            Thank you,

Susan Campbell.
                                 ______
                                 
                       Comment of Cleraine Camper
    Date Submitted: Wednesday, May 16, 2012, 9:04 p.m.
    City, State: Oak Park, IL
    Occupation: Social Worker
    Comment: Please do not cut benefits to needy families and low 
income individuals who struggle to feed themselves and their families. 
I am involved with an number of hunger organizations and have face to 
face contact with hungry people. They need assistance from their 
political representatives to help them get the food they need to feed 
their family. Why can't we, as one of the richest nations in the world 
feed our people and our children. Something is wrong if we cannot so 
this. I ask for your help, not only in your vote, but in being a voice 
for the people who need help to eat. No one should be hungry on 
America.
                                 ______
                                 
                        Comment of Mark Canright
    Date Submitted: Friday, May 18, 2012, 2:21 p.m.
    City, State: Asbury, NJ
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Congressman Lance and Members of the House Committee 
on Agriculture:

    I am an organic farmer in New Jersey and I am hoping you will pass 
a farm bill in 2012 that supports organic farming, conservation 
programs including the Farm and Ranch Lands Protection Program (FRPP), 
and the Beginning Farmer Program.
    My family and I preserved our farm in 2004 using funds from FRPP, 
which is currently being combined with the Wetlands Reserve Program 
into a combined easement program. We hope you will fully fund this 
easement program, as it helps protect our critical farmland and 
wetlands.
    I am concerned that farmers must be held to Conservation Compliance 
if they/we expect to receive any type of farm subsidy. As farmers, we 
face many threats to our land and water due to a changing climate and 
pollution, and we must do everything we can to keep our natural 
resources clean for all future generations. Taxpayers pay for most of 
the farmers insurance premiums at a price of over $7 billion a year, 
and should expect a return from those receiving these payments in the 
form of natural resource conservation.
    I strongly urge you to tie conservation requirements to federally 
subsidized crop insurance premium subsidies. To receive commodity 
subsidies or farm bill conservation payments, producers should have to 
comply with soil erosion prevention plans if they farm highly erodible 
land and promise not to drain any wetlands on their property. As you 
know, under the original conservation provision passed by Congress as 
part of the 1985 Farm Bill these very basic requirements applied to the 
receipt of crop insurance subsidies, but that requirement was later 
removed as part of the 1996 Farm Bill.
    I agree with the National Farmers Union position of support for 
``the reestablishment of compliance requirements for Federal crop 
insurance eligibility so that all existing or new crop and revenue 
insurance or other risk management programs are subject to all 
conservation compliance provisions.''
    Thank you very much for the opportunity to comment on the 2012 Farm 
Bill.
            Sincerely,

Mark Canright,
Asbury, NJ.
                                 ______
                                 
                       Comment of Margaret Canter
    Date Submitted: Saturday, May 19, 2012, 7:22 p.m.
    City, State: Tallahassee, FL
    Occupation: Nurse-Midwife
    Comment: End subsidies to industrial farming and support the small 
farmers who need the help to produce healthy foods for our families. As 
a nurse-midwife I see the poor health consequences of government 
support to monoculture farming that makes sugary high fat food cheap. 
We need more small farms producing fruits and vegetables without the 
use of harmful pesticides.
                                 ______
                                 
                      Comment of Judy Cantor-Navas
    Date Submitted: Friday, May 18, 2012, 12:32 p.m.
    City, State: Los Angeles, CA
    Occupation: Writer/Music Programmer
    Comment: We need infrastructure for providing healthy nutrition for 
our families, not practices that put our health in danger for the 
benefit of corporations. Create legislation that supports organic 
farming and access to healthy food for all.

Judy Cantor-Navas.
                                 ______
                                 
                        Comment of Pat Cantwell
    Date Submitted: Friday, May 18, 2012, 4:18 p.m.
    City, State: Boulder, CO
    Occupation: Computer Programmer
    Comment: Please support only sustainable, organic farming 
practices! It is the only way we can protect future generations! Nature 
never intended itself to see chemicals and we must guard that closely 
for our children's sake!
                                 ______
                                 
                        Comment of Elise Caplan
    Date Submitted: Friday, May 18, 2012, 9:16 a.m.
    City, State: St. Petersburg, FL
    Occupation: Independent Sales
    Comment: We as Americans have become scared of our food the more we 
learn and see of the atrocities happening through ultra mechanized 
farming and bad animal care.
    There is proof in the upswing popularized farmers markets. We want 
our food grown small and local and that's all there is to it.
                                 ______
                                 
                        Comment of Nancy Caponi
    Date Submitted: Friday, May 18, 2012, 6:29 p.m.
    City, State: Santa Barbara, CA
    Occupation: Nonprofit Director
    Comment: It is time to end tax-payer subsidies to huge agribusiness 
corporations that are destroying our clean air and water resources with 
dangerous GMO crops and toxic chemical applications. Instead, we want 
our tax dollars to support the food stamp program and small organic 
farmers only. Thank you.
                                 ______
                                 
                    Comment of Carole Capriotti-May
    Date Submitted: Friday, May 18, 2012, 12:45 p.m.
    City, State: Wilmington, DE
    Occupation: Retired Registered Nurse/Nutritionist
    Comment: The time has arrived that we have to act on feeding 
ourselves Healthfully in a responsible Qualitative manner as a nation 
instead of quantitatively. We are creative enough to halt the congested 
wheels of quantitative corporate feeding of ourselves and still be able 
to ensure all get nourished in this nation. Just let us do it! 
Transform agribusiness as it is known now to All organic, locally 
produced food supply and I feel totally confident that our creativity 
amongst our nation's people will pull together to ensure all are more 
healthfully nourished. Please Be Bold & Courageous and do what is right 
for our health & prosperity as a nation!
                                 ______
                                 
                         Comment of Noel Carden
    Date Submitted: Friday, May 18, 2012, 10:03 a.m.
    City, State: Richmond, VA
    Occupation: Sales Executive
    Comment: I support the elimination or minimization of subsidies to 
large agribusiness and would like to see our farm policy work more for 
the benefit of smaller farmers.
                                 ______
                                 
                       Comment of Katie Cardenas
    Date Submitted: Friday, May 18, 2012, 3:59 p.m.
    City, State: Garner, NC
    Occupation: Educator
    Comment: In so many ways, it is important that we make a stand for 
this bill:
    Nutrition programs are critical to the health of children, but also 
to the well-being of our future. Hungry or undernourished children 
cannot learn as well so we are draining our future's intellect.
    Give opportunities for people to become the answer. Funding 
programs that support beginning and socially disadvantaged farmers and 
ranchers, organic farming, regional farm and food economies, and rural 
development. We need more farmers and ranchers, more sustainable food 
production, and more economic opportunity in our food system. When we 
support our farms, we value our land. We will better protect and 
preserve what we value.
    Let people farm. Enough of machines in the field and suits in the 
office running things. Support family farmers that really need help, 
not the biggest farms that don't:

  <bullet> End subsidies (aka direct payments and countercyclical 
        commodity programs), and replace them with loophole-free 
        agriculture risk coverage. Additionally, implement a cap on 
        crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                       Comment of Melina Cardenas
    Date Submitted: Saturday, May 19, 2012, 11:33 a.m.
    City, State: Draper, UT
    Occupation: Administrative Manager
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I believe it is very important, in fact the responsibility of 
people in power, to maintain order over the food that is being produced 
in this country. I do not believe that a giant agribusiness necessarily 
has in mind, the good of the people it is feeding, on the contrary, it 
feasts on profits. It is important to allow organic farmers to thrive, 
in order to let that choice of food be an option for people in this 
country. It is never a good thing when one entity has such a great deal 
of power; healthy competition is necessary to create a beneficial 
balance for the citizens of this country.
                                 ______
                                 
                       Comment of Tonya Cardwell
    Date Submitted: Saturday, May 19, 2012, 11:14 a.m.
    City, State: Blacksburg, VA
    Occupation: Mother
    Comment: The ``quick fix'' that companies like Monsanto provide for 
our food is nothing but detrimental to the welfare of the American 
people. Sacrificing millions of people's health and safety for the sake 
of a handful of CEO's profits is a disgusting practice and can Not 
continue.
                                 ______
                                 
                         Comment of Anne Carey
    Date Submitted: Saturday, May 19, 2012, 7:29 a.m.
    City, State: Highland Park, NJ
    Occupation: Teacher
    Comment: I support a farm bill that is fair and supports healthy 
food.
    I support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286). I also support fully funding 
conservation programs, such as the Conservation Stewardship Program, 
and making sure that enrollment in any new insurance subsidies are tied 
directly to compliance with conservation programs.
    As well as supporting the implementation of all provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236) and 
maintaining the EQIP Organic Initiative.
    I want this farm bill to put the health of the people and the small 
farms ahead of the interests of the industrial agricultural lobbyists. 
The only way to stop the obesity epidemic in this country is to support 
the production of real food, not food derived from various corn 
products. There are thousands of people in this country that want to 
work towards this and we need a farm bill which supports that goal or 
gives us an opportunity to build our future. Thank you.
                                 ______
                                 
                         Comment of Doris Carey
    Date Submitted: Friday, May 18, 2012, 10:32 p.m.
    City, State: Cherry Hill, NJ
    Occupation: Retired Biochemist and Nutritionist
    Comment: Protect the farmer who makes his living by farming not the 
people who grow a little produce to get lower taxes. Also no subsidies 
to mega agriculture. Protect the organic farmers from the cross 
pollination and wind drift from GMO crops.
                                 ______
                                 
                       Comment of Theodore Carlat
    Date Submitted: Friday, May 18, 2012, 6:44 p.m.
    City, State: Dayton, WA
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: Support Certified Organic agriculture and local food 
production. No More corn and soy subsidies. Support small farms, and 
farm diversity not mono-cropping. Fund a food system that feeds people 
nutrition not mass commodity crops. Local, Organic and Fair competition 
for food producers. Do Not subsidize chemical farming at all. Stop the 
chemical dependency now.
                                 ______
                                 
                       Comment of Andrew Carlile
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Salt Lake City, UT
    Occupation: Mechanical Engineer
    Comment: With healthcare costs soaring, an obesity epidemic, and 
diabetes rates increasing something in our food system has to change. 
We can't allow profits to come before the health of the general 
population. Organic and or healthy food needs to be a priority.
                                 ______
                                 
                        Comment of Drew Carlson
    Date Submitted: Friday, May 11, 2012, 1:40 p.m.
    City, State: Madison, WI
    Occupation: Energy Efficiency Advisor
    Comment: I believe that more of a focus on small producers 
providing food to local community is a must for our health. We need to 
work to not only improve rural food production but also urban food 
production as well. Please focus on sustainable, non-GMO and better 
that USDA organic food production policies and visions.
                                 ______
                                 
                       Comment of Gwenna Carlson
    Date Submitted: Wednesday, May 09, 2012, 5:45 p.m.
    City, State: Richland, WA
    Occupation: Retired Office Clerk
    Comment: Please consider the plight of senior citizens when 
discussing the farm bill. We work for many years, paying taxes, but 
with no voice in how those taxes will be used. So far seniors have had 
Medicare coverage and Social Security raises reduced and when we try to 
go back to work to close the gap between income and expenditures, we're 
unemployable except for an extremely few part time, minimum wage jobs. 
Most of us must choose between food and medical bills, utility and 
transportation, etc. Please help us retain some dignity in our advanced 
years by allowing some care for those of us who have put out much for 
many years and now must put out more for failing bodies. Thank you.
                                 ______
                                 
                       Comment of Stacey Carlson
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Brooklyn, NY
    Occupation: Freelancer
    Comment: It is time for real reform, not handouts to only 
commercial farmers. We need to protect our land from over producing and 
use of dangerous pesticide and GMO seeds. It is time to support and 
protect our nation's food supply and system but not taking the easy 
road and letting commercial companies take over everything.
                                 ______
                                 
                      Comment of Florence Carnahan
    Date Submitted: Friday, May 18, 2012, 1:19 p.m.
    City, State: Burlington Flats, NY
    Occupation: Anti-Fracking Activist, Retired
    Comment: I do not produce for sale, only for my family. I raise all 
produce, meat chickens, berries that we use during a year and I share 
with friends and local food pantries. I buy from neighbors who produce 
what I can't grow.
    Small farmers are the bread and butter of a rural community like 
the one I live in. And we need to encourage sustainable practices not 
big industry farming. We need regulations that are fair and balanced--
not heavily in favor of the big corporations who produce toxic products 
that are killing the very soil the food is growing in. The chemical 
industry is in control and it doesn't benefit the Americans who need to 
eat the food produced in our nation it only benefits the corporations. 
They need to be persuaded that the patriotic thing to do is to grow 
safe food for Americans.
    We have food deserts in the urban and the rural areas. Farmers 
markets are important for both populations. We have to drive at least 
15 miles from our home to purchase anything fresh and not found in a 
convenience store. How can we have healthy Americans if we can't buy 
healthy food? I am starting to work on a farmer's market for several 
adjoining towns.
    Subsidies for large corporate farms is not a fair and balanced way 
to produce healthy food that is available to all. When we had a farm 
years ago we had to sell out b/c we couldn't compete with large 
producers or products from overseas. ``Get big or get out'' is 
decidedly not a good American value.
    There needs to be some way for small farmers to make enough money 
to see a future without selling out to fracking to make ends meet.
    And we need farmland for food, not ethanol, gross amounts of animal 
feed or corn syrup, for example.
                                 ______
                                 
                        Comment of Starr Carney
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: Cottonwood, AZ
    Occupation: Retired
    Comment: The health of the people of this country must come before 
the interests of big agra. Most of all, the people of this nation have 
the right to make choices concerning what they eat; our government is 
totally out of touch and act like they never got out of grade school or 
are from another planet.
                                 ______
                                 
                       Comment of Barbara Carolan
    Date Submitted: Friday, May 18, 2012, 3:15 p.m.
    City, State: Bayside, CA
    Occupation: Consumer
    Comment: Fresh, local, regional, statewide and national produce, 
fish, meats and dairy are what I buy and need to have encouraged and 
supported by this farm bill.
                                 ______
                                 
                      Comments of Kenneth Carolus
    Date Submitted: Friday, May 18, 2012, 12:37 p.m.
    City, State: Brookville, OH
    Occupation: Retail Sales
    Comment: I also want a 2012 Farm Bill that expands opportunities 
for family farmers to produce good food, sustain the environment, and 
contribute to vibrant communities!
    Date Submitted: Friday, May 18, 2012, 12:31 p.m.
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                     Comment of Dr. Lorraine Caron
    Date Submitted: Friday, May 18, 2012, 2:07 p.m.
    City, State: Fort Collins, CO
    Occupation: Naturopathic Physician, Mother
    Comment: As a physician and a parent, I know just how important 
healthy food and a healthy environment is to our well-being. Our 
current farm bill certainly does not appropriately tend to both of 
these. It subsidizes corn and soy rather than fruits and vegetables. It 
doesn't go far enough toward supporting organic, sustainable and local 
farming and food initiatives. It's time to change this!
    I support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286).
    I support fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    I support maintaining the EQIP Organic Initiative.
    Thank you for your time.

Dr. Lorraine Caron.
                                 ______
                                 
                      Comment of Deborah Carosella
    Date Submitted: Friday, May 18, 2012, 7:01 p.m.
    City, State: Los Altos, CA
    Occupation: Self-Employed
    Comment: I support the following and would encourage you to also:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

    Sustainable farming and food production, environmental protections, 
development of Organic farming practices, Small Farm growers, Labeling 
of GMO's, Humane Farming practices--these are the most important issues 
for a healthy citizenry, country and planet. It's time we started 
leading the way again and not just in profits for the agribusiness, 
pharmaceutical, chemical, and biotech corporations who appear to own 
this country.
    Do Not allow for cutting funding to vital programs such as 
nutrition, conservation and support for organic and sustainable 
agriculture.
    Thank you.
                                 ______
                                 
                       Comment of John Carosella
    Date Submitted: Friday, May 18, 2012, 5:21 p.m.
    City, State: Los Altos, CA
    Occupation: Therapist/Small Business Owner
    Comment: Sustainable agriculture should be our goal. Organic 
production methods are less costly and more effective, and Certainly 
more sustainable than our current conventional farming practices. GMOs 
are inadequately tested and demonstrably dangerous.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I encourage you to do so as well. Any other stand should be 
justified in terms of the will of the people, the sustainability of 
agriculture in this country, and overall environmental and economic 
sustainability.
    Let's have a farm bill that encourages healthy foods--produce, not 
grains and starches, smaller farms, more localized production, and 
organic, sustainable agriculture. Profit for agribusiness should Not be 
the goal of the farm bill.
    A healthy, sustainable food supply for the people of the United 
States should be the goal, and is a fundamental responsibility of the 
U.S. Government. Our current system, and the elements of the current 
proposal that have been made public, are not in alignment with this 
goal and responsibility.
    Think about it. Please. Don't let lobbyists and campaign funding 
drive your priorities. Redirect the billions of taxpayer money towards 
a healthy, sustainable agricultural future for America.
    Make a choice for the People.
    Thank you for your attention.
                                 ______
                                 
                        Comment of Amy Carpenter
    Date Submitted: Saturday, May 19, 2012, 12:08 a.m.
    City, State: Eugene, OR
    Occupation: Bookseller
    Comment: Government support and subsidies for agriculture should 
NOT be going to already-profitable huge agribusinesses!
    The farm bill must support the best agricultural practices: put the 
health of our citizens and our environment, and the livelihood of 
individuals (farmers and farm workers) ahead of the interests of 
industrial agriculture lobbyists.
    To this end, I support:

  <bullet> The Local Foods, Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The Beginning Farmer and Rancher Opportunity Act (H.R. 
        3236).

  <bullet> The EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Sue Carpenter
    Date Submitted: Saturday, May 19, 2012, 5:13 p.m.
    City, State: Sequim, WA
    Occupation: Retired
    Comment: We feel there is room in our society for both organic and 
other commercial growers without one side having all the power. Please 
consider a more balanced approach so that those who chose to try to 
maintain a healthier lifestyle still have the freedom to do this. Now 
it seems that Monsanto holds too much power and encroaches on the 
rights of the small individual farmer.
                                 ______
                                 
                         Comment of Carol Carr
    Date Submitted: Friday, May 18, 2012, 1:38 p.m.
    City, State: Santa Rosa, CA
    Occupation: Registered Nurse
    Comment: Our farmers, our farms and our food need protection and 
support! Food is so much more than money! Please protect the farms and 
farmers that provide so much for a way of life that will disappear if 
you don't protect and preserve our lands and individual farmers.
            Thank you,

Carol Carr.
                                 ______
                                 
                         Comment of Irene Carr
    Date Submitted: Friday, May 18, 2012, 5:38 p.m.
    City, State: Duluth, MN
    Occupation: Physician
    Comment: Unsubsidized, organic raised food and livestock is 
essential to our survival. Now is the time for all of us to make the 
most evolutionary choices.
                                 ______
                                 
                         Comment of Sarah Carr
    Date Submitted: Friday, May 18, 2012, 3:44 p.m.
    City, State: Plainfield, MA
    Occupation: Therapist
    Comment: I understand Members of the House Committee on Agriculture 
are currently accepting comments on the topic of agriculture. I hope 
you will hear and consider mine. Food is the most basic thing there is. 
As a therapist, I can say confidently that we literally and profoundly 
are what we eat. The state of food effects not just our physical health 
but our emotional balance and mental clarity. Food also ties together 
all other issues on this planet from corporate industrialization to 
class to spirituality to the environment and more. It is so incredibly 
basic that what happens with food is therefore global and far-reaching 
in its effects. Therefore, it is worth paying very close attention to 
what has happened to our food system. Whomever is overseeing food 
production holds an incredible amount of responsibility for the well-
being of society.
    I personally am very concerned about the state of so-called 
``food'' in this country. Industrial agriculture has transformed our 
food system into one that is based entirely on 3 food substances: corn, 
soy, and wheat. Most food products at this point are food-like 
substances, not actual food. I used to be worried about the additives. 
Now I am disturbed by what happens to it before it is even grown 
(genetic manipulation). More and more people in this country are 
disconnected from the sources of food and their own bodies. So many are 
suffering from both obesity and malnutrition, not to mention sugar 
addiction caused by high fructose corn syrup in every product, food 
allergies created by an over-consumption of highly processed and 
repetitive foods, endocrinological disruptions, etc. I spend more on 
food than any other category on my life. It is so important to me to 
eat food that is healthy. I eat and want food for myself and everybody 
that has real nutrition and is really food, that is produced locally by 
people I know. I want it to be free of genetic manipulation and 
chemical pesticides and fertilizers. I want clean water coming out of 
the faucet, not full of fluoride or chlorine, and not available only in 
plastic bottles at the supermarket. I want a food production system 
that helps connect people to the source of their food, both the Earth 
and the people who grow it. And I want the production system to benefit 
all, not toxifying the air and water with chemicals nor wasting 
precious fossil fuels transporting it gigantic distances. I would like 
to see food production decision-making power given back to local 
governments.
    Thank you for hearing and seriously considering my comments.
                                 ______
                                 
                       Comment of Cynthia Carrier
    Date Submitted: Friday, May 18, 2012, 2:15 p.m.
    City, State: Bristol, CT
    Occupation: Sell Holistic Dog Food
    Comment: I feel that it is our right as Americans to know and chose 
what type of foods we are buying. The use of GMO seeds is of great 
danger to our organic crops, other countries do not allow this type of 
seed. Please take this into consideration next time you eat produce 
grown in the USA, and when you write the next farm bill. It should not 
be in the hands of just big corporate America, we have all seen what 
that has done for this country.
                                 ______
                                 
                      Comment of Shekinah Carrillo
    Date Submitted: Saturday, May 19, 2012, 12:55 p.m.
    City, State: Pahoa, HI
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: Small, local food producers are better equipped to provide 
food for the community than are the large agribusiness farms. We need 
to be supported, with more research done toward organic production. Low 
income households are better able to provide for themselves working 
within these models, with a more sustainable future for all.
                                 ______
                                 
                        Comment of Linda Carroll
    Date Submitted: Saturday, May 12, 2012, 6:54 p.m.
    City, State: New Orleans, LA
    Occupation: Professor
    Comment: Americans need a farm bill that helps small farmers, that 
provides people with healthy food, that protects the environment by 
avoiding harmful chemicals including those complicit in the Gulf Dead 
Zone and excessive use of water, and that helps rural communities.
                                 ______
                                 
                        Comment of Mike Carroll
    Date Submitted: Sunday, May 06, 2012, 10:05 p.m.
    City, State: Bernalillo, NM
    Occupation: Firefighter/Paramedic
    Comment: The local foodbanks are a huge investment and prevent 
strains on other resources like healthcare. If people can receive 
better nutrition many simple diseases do not get to the point where 
people need to utilize emergency services.
                                 ______
                                 
                        Comment of Scott Carroll
    Date Submitted: Friday, May 18, 2012, 5:04 p.m.
    City, State: West Tisbury, MA
    Occupation: Landscaper/Artist/Activist
    Comment: This is such an imperative issue at such a crucial time. 
The impact that this will have on our lives and the lives of our 
children and future generations is far reaching, from personal freedom 
to a myriad of health issues for both humans and the planet.
                                 ______
                                 
                        Comment of Susan Carroll
    Date Submitted: Saturday, May 19, 2012, 12:24 a.m.
    City, State: Murray, UT
    Occupation: Teacher
    Comment: Farming in the United States should not be a private 
reserve for any business. Monsanto and other mega businesses should not 
be allowed to terrorize other producers. I want to eat real food--not 
food filled with spliced in pesticides. When a genetically modified 
plant kills birds and insects, that is not a plant to be eaten by 
humans. Return farming to farmers who care about the quality and safety 
of the food on my table.
                                 ______
                                 
                        Comment of Andrea Carta
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Manchester, NH
    Occupation: Technical Support Representative
    Comment: Support and promote Organic farming. Organic foods have a 
higher nutritional value. As a result, you feel fuller with less food. 
I am a living example of this as well as many people I know who have 
switched to organic foods.
    Make it the Law that All GMO foods Must be labeled as such . . . No 
Exceptions!
    No GMOs! They are extremely bad for the body, whether it is people 
or animal. The body is intended to take in foods as natural as the land 
they're on. When you start altering the food you plant, you alter the 
land it is growing on. Once you unleash that, you are starting a 
nightmare that could very like cause the land to be unusable because 
crops just won't grow. Even if it does grow, GMO foods have been linked 
to many health issues.
    GMO is bad for the land. GMO is bad for the body. There is no place 
for it, regardless of whether it fills a company's or politician's 
pocket with money. In the long-run, that company and politician are 
going to be eating the same food they are poisoning the environment 
with. Once you poison the environment, there's no turning back. It's 
not worth the risk!
                                 ______
                                 
                         Comment of Beth Carter
    Date Submitted: Saturday, May 19, 2012, 1:06 p.m.
    City, State: Shoreline, WA
    Occupation: Homemaker/Gardener
    Comment: In the last few years, I have had to educate myself over 
many related and unrelated topics regarding nutrition and health. 
Through connections with friends and family, the information shared 
includes such notables as a USDA survey sent to landowners in 
Washington State asking for specifics of whether or not they grow crops 
on their parcels--under threat of incarceration. Yes, that's right. A 
survey was demanded via threat of incarceration.
    Honey bees are becoming quite a hot topic and for good reason. 
Industrial agriculture business has become too big of a force 
internationally. All of this was possible due to the giveaways from the 
farm bill. Thus I must ask you to carefully and intentionally curb 
industrial concerns and protect, nay, revive interest in small farms 
with small net worth. Diversification is all well and good in an 
investment portfolio, but it has become gauche anywhere else. This, 
however, is exactly what is needed to save America as the dumbing down 
of America has begun through the food chain.
    Protect family farmers from industrial concerns by working the farm 
bill to do just that.
    Thank you for your time.
                                 ______
                                 
                        Comment of Kathy Carter
    Date Submitted: Thursday, April 12, 2012, 9:10 p.m.
    City, State: Chelsea, MI
    Occupation: Homemaker
    Comment: I'm a local food advocate and get over 70% of my food from 
local farms--small farms. That's sometimes hard to do, but getting 
easier. I want a farm bill that will make it easier for small farmers 
to take care of the land and reach out to local customers. I don't 
think large corporations need any more help in the form of subsidies, 
special regulations, marketing, etc.
                                 ______
                                 
                       Comment of Marjorie Carter
    Date Submitted: Friday, May 18, 2012, 8:58 p.m.
    City, State: Ballwin, MO
    Occupation: Attorney/Mediator
    Comment: Our food supply in this country must be safe for all of us 
and not laced with antibiotics and poisons or from genetically modified 
foods. Please pass legislation that protects our food supply and that 
does not protect greedy corporations.
                                 ______
                                 
                      Comment of Marion Cartwright
    Date Submitted: Monday, April 30, 2012, 5:44 p.m.
    City, State: Lake Forest, IL
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: As you craft the new farm bill, please retain mandatory 
status/funding for the Know Your Farmer/Know Your Food. In particular 
we need to reduce costs for farms to transition to organic practices 
because the long term costs of the current chemical and monoculture 
practices are unsustainable both for the health of the soil, the health 
of the American public and the health of the water and pollinators. We 
also need to build in incentives for farmers to sign up for 
conservation compliance agreements. That is all going out the window if 
you switch to this revenue insurance plan that has no conservation-
compliance requirement. We need to diversify crops on our farms as 
well. Acres and acres of potatoes or almond trees or corn or soybeans 
is not sustainable with pesticides. I am also very concerned about the 
fact that the Round-Up Ready crops now facing 11 (and counting) round 
up resistant weeds and now companies are working on 2,4-D ready crops. 
This is ecological insanity. Short term profits over long term health. 
Short term lower food prices for long term expensive health care 
issues.
                                 ______
                                 
                         Comment of Beth Caruso
    Date Submitted: Friday, May 18, 2012, 10:22 a.m.
    City, State: Windsor, CT
    Occupation: Registered Nurse
    Comment: I want to eat food that is free of pesticide that does not 
hurt bees or contaminate human water as a result. I want to eat food 
that is non-GMO. Right now I have to shop at an Asian market to get 
non-GMO soy. I want to give my family healthy food that does not hurt 
the environment or our bodies. Until there is a food bill that helps 
local communities and takes big corporations out of the loop I will be 
boycotting factory owned farms and Only buying at my local farmers 
markets or food from overseas that is non GMO. Get the point? Thanks 
for reading.
            Sincerely,

Beth Caruso, a very concerned citizen.
                                 ______
                                 
                         Comment of Kate Casale
    Date Submitted: Friday, May 11, 2012, 7:19 p.m.
    City, State: Alameda, CA
    Occupation: Teacher
    Comment: After a decade of working in communities affected 
adversely by a food system that prioritizes corporations and profits 
over communities and health, I urge you to advocate for our well-being.
    Specifically, I ask you to advocate for:

  <bullet> Full Funding for Programs that Strengthen Economic 
        Opportunities for Small and Mid-sized Farmers and Ranchers and 
        Improve Consumer Access to Local, Healthy and Sustainable/
        Organic Food. These include rural economic development 
        programs, Farmers Market Promotion Program, the Value-Added 
        Producer Grant program, Organic Certification Cost-Share 
        Program, equitable crop insurance for organic producers, and 
        Beginning Farmer Development and Socially Disadvantaged Farmers 
        and Ranchers loan programs. We urge you to reform the Specialty 
        Crop Block Grant Program so that more funding goes to support 
        healthy food access and local and sustainable food production 
        and distribution. We also encourage innovations to better link 
        urban and rural areas to maximize benefits for everyone.

  <bullet> Protecting and strengthening USDA food assistance programs 
        that fight hunger and improve nutrition. We must ensure that 
        the Federal deficit is not reduced at the expense of low-income 
        Americans by reducing funding for SNAP/CalFresh, WIC and other 
        major food programs.

  <bullet> Increasing Access to and Affordability of Healthy Food and 
        Beverages in Underserved Communities. We urge you to support 
        the Healthy Food Financing Initiative program, the Community 
        Food Projects Grants Program, and incentives for healthy food 
        and beverage purchases by clients of Federal food programs 
        (including facilitating the use of SNAP, WIC and SSI benefits 
        at farmers' markets, community supported agriculture and other 
        direct marketing/delivery programs)

  <bullet> Healthier Diets for Children. It is vital to increase the 
        percentage of fresh fruit and vegetable purchases in school 
        food procurement programs and expand the Fruit and Vegetable 
        Snack Program. The government should incorporate more local 
        fresh fruit and vegetable purchases into the USDA Commodity 
        Foods program and the Department of Defense's (DoD) Fresh 
        program for school meals. Shifting to better food and beverages 
        would not necessarily raise costs and would improve health.

  <bullet> Full Funding for Agriculture Conservation & Research and 
        Extension Programs. Conservation, research and extension are 
        crucial to helping farmers and ranchers protect soil resources, 
        improve air quality and conserve water and wildlife habitat. 
        Critical programs include the Environmental Quality Incentives 
        Program and Conservation Stewardship Program. We also urge you 
        especially to support research focusing on whole-farm 
        management systems, on-farm solutions, and infrastructure that 
        strengthen ecologically sensitive, local and regional food 
        production. Existing programs include ATTRA/The National 
        Sustainable Agriculture Information Service, Sustainable 
        Agriculture Research Education, and the Organic Research and 
        Extension Initiative.

  <bullet> Full Funding for Programs to Promote Healthier Diets for All 
        Americans. Healthy diets are essential for happy lives and save 
        billions of dollars in health-care costs. Dietary improvement 
        programs run by USDA's Center for Nutrition Policy and 
        Promotion, which oversees the Dietary Guidelines for Americans 
        and MyPlate, should be protected and expanded over time.

    Please support efforts to define a new Food and Farm Bill in line 
with today's needs. In the last century, the farm bill successfully 
ensured an abundant supply of cheap but often lower-quality calories. 
In this century, it must support healthier diets, diverse and resilient 
farming systems, and economic revitalization to help eliminate hunger.
    Thank you so much for your support.
    Please take an opportunity to look at what young people are doing 
in their communities to make change at: (http://
www.rootedincommunity.org) (http://www.youthfoodbillofrights.com).
                                 ______
                                 
                         Comment of Kim Casper
    Date Submitted: Friday, May 18, 2012, 2:17 p.m.
    City, State: Seattle, WA
    Occupation: Writer
    Comment: We do not inherit the Earth; we borrow it from our 
children. Let the Earth be happy, the way Nature intended; she knows 
best. These other ways of manipulating foods destroys health in two 
generations. Let us honor the wisdom of Nature/God and take her 
abundance the way it is offered.
                                 ______
                                 
                         Comment of Jen Cassels
    Date Submitted: Friday, May 18, 2012, 2:00 p.m.
    City, State: Bell Buckle, TN
    Occupation: Teacher
    Comment: Support small farmers and organic farming. Don't cut $4 
million from organic research funding and don't cut in half funding to 
support Beginning Farmers.
                                 ______
                                 
                        Comment of Tammy Casteel
    Date Submitted: Friday, May 18, 2012, 12:52 p.m.
    City, State: Independence, MO
    Occupation: Homemaker
    Comment: We need access to locally grown organic produce, nothing 
else affects our health as much as this subject. Please support local 
organic. Thank you.
                                 ______
                                 
                       Comment of John Castellini
    Date Submitted: Saturday, May 19, 2012, 5:27 p.m.
    City, State: Tinton Falls, NJ
    Occupation: Chiropractor
    Comment: The ultimate source of all economies, including our own, 
is the land. The health of our bodies, of our communities, of our 
cultural and political institutions, of our nation and ultimately our 
planet are directly contingent upon our skilled and respectful use of 
this most precious and irreplaceable resource as well. We have confused 
exploitation with proper and ethical husbandry. Our policies have 
valued corporate profit over the well being of people and communities. 
If our children and grandchildren are to have a viable future, and 
given our current policies and farming methodologies this is seriously 
in doubt, we must, and soon, move from an industrial agriculture back 
to a local and human-scaled form of farming.
                                 ______
                                 
                       Comment of Julie Castillo
    Date Submitted: Friday, May 18, 2012, 8:59 p.m.
    City, State: Fort Bragg, CA
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Field Crops, Fruits, Greenhouse/nursery, 
Vegetables
    Size: Less than 50 acres
    Comment: I am a garden educator in 2 elementary schools. I have a 
teaching credential and a bachelor degree in Horticulture. I have been 
working with kids and nutrition education for 15 years and have seen 
changes in eating habits due to our garden program in partnership with 
our food service. The changes are profound and extend to the family and 
the community. Please support funding that helps school meal programs 
provide fresh fruit and vegetables and whole grains. We are making 
change and it needs to continue for the sake of the next generation and 
those that follow.
                                 ______
                                 
                         Comment of K.A. Castle
    Date Submitted: Sunday, May 20, 2012, 10:50 p.m.
    City, State: Pitcairn, PA
    Occupation: Warehouse Worker
    Comment: I fully support small organic independent farmers and I 
feel there should be laws in place that protect both their livelihoods 
And their lands from big arga-businesses such as Monsanto who only care 
about making money and do not care about what they are doing to our 
planet or the human and animal species with their GMO crops and 
hazardous pesticides. I have a Right to be health and to choose healthy 
and Safe food options. This is your planet and your family too! It is 
time to wake up and protect us all!
                                 ______
                                 
                      Comment of Brian Castleforte
    Date Submitted: Friday, May 18, 2012, 2:46 p.m.
    City, State: Van Nuys, CA
    Occupation: Graphic Designer
    Comment: Mr. Sherman, please understand the gravity of our 
situation in regard to the food system as it now stands. We are in 
grave danger of so many current and potential problems with not only 
our health and our environment, but in the survival of our species on 
the whole. There is no more time for red tape BS. The time for action 
is now. I beg you to please stand up for what is right, to not be 
bullied by these deplorable corporate chemical producing killers, and 
do what's right. Please do the right thing and help save our food 
system before there is no return. Thank you for your time and attention 
to this matter.
            Respectfully,

Brian Castleforte.
                                 ______
                                 
                      Comment of Elizabeth Castner
    Date Submitted: Wednesday, May 02, 2012, 2:49 p.m.
    City, State: Piscataway, NJ
    Occupation: Student
    Comment: The current iteration of the farm bill has the potential 
to change agriculture and food markets in America to address many 
economic and social issues, but serious attention needs to be given to 
how funds are distributed and what regulations are put in place. For 
example, some organizations have suggested attaching conservation 
compliance to crop subsidies in order to make ecological concerns a 
central focus, which is important because of our uncertain 
environmental future and its impacts on farming.
    The intention of the original farm bill was to provide financial 
security for America's farmers, which was what was needed at the time. 
Food has become available and affordable for many Americans, but 
external ecological costs and health concerns have resulted from the 
agricultural system we have today. Farmland needs to be conserved and 
protected so that we will be able to continue producing food in the 
future. Commodity crops receive the greatest subsidies, but contribute 
the most to nutrient-poor diets that are causing health problems in 
communities that can't afford healthier options. Providing subsidies 
for vegetable farmers would encourage accessibility of healthier crops.
    I think re-structuring of subsidies and implementing regulations of 
food available in SNAP are important changes to be considered. The 
livelihoods of farmers and equitable accessibility of nutritious food 
should be supported as well.
                                 ______
                                 
                        Comment of Laura Castro
    Date Submitted: Friday, May 18, 2012, 6:25 p.m.
    City, State: Boone, IA
    Occupation: Chemist
    Comment: I am writing to ask the members of the House Agriculture 
Committee to support organic agriculture, and reject cutting research 
funds aimed at developing new and improved techniques to help us 
produce agricultural products in a way that is environmentally 
friendly, and sustainable. We as a nation must avoid recurring to 
agricultural practices that pollute the environment and degrade our 
natural resources.
    We also need to have an improved farm subsidies system that doesn't 
put organic farmers at an unfair disadvantage. It would be wise to 
reduce the amount of money going to subsidize standard agricultural 
practices that don't yield healthy and nutritious food. The health of 
average Americans would benefit from reducing exposure to pesticide 
residues and genetically-modified crops that lack scientifically-sound 
safety studies, especially in light of scientific evidence that 
suggests otherwise.
    Please lend your support to:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Morgan Catalina
    Date Submitted: Friday, May 18, 2012, 11:58 a.m.
    City, State: Austin, GA
    Occupation: Account Executive
    Comment: We must consider the health of the nation over the benefit 
of large corporations for food security. We need diversification and to 
keep small American farms alive!
                                 ______
                                 
                      Comment of Anthony Catalino
    Date Submitted: Friday, May 18, 2012, 4:54 p.m.
    City, State: New York, NY
    Occupation: Restaurant Manager
    Comment: We need to know what is in our food. I'm amazed that our 
country allows the food we eat to have so much unnecessary crap in it, 
that no other country allows. It appears to me that there is something 
our government is missing! We need more nutrition classes so our kids 
and adults know what to eat!
                                 ______
                                 
                    Comment of Elizabeth Catrambone
    Date Submitted: Saturday, May 19, 2012, 8:25 a.m.
    City, State: Millersville, MD
    Occupation: Stay-at-Home Mom
    Comment: Please do not cut funding for organic farming. Organic 
produce and foods used to be a specialty market. That is no longer the 
case. Consumers now know the impact pesticides and hormones have on our 
health and the health of our children. There is much more demand now 
for pure-farmed, non-GMO foods, pushing organic into mainstream 
markets, despite our existing economic condition. Thank you so much for 
your continued hard work and unbiased consideration on matters 
affecting the health of our kids. Not much is more important.
                                 ______
                                 
                       Comment of Richard Caudill
    Date Submitted: Friday, May 18, 2012, 11:10 p.m.
    City, State: Campbell, CA
    Occupation: Retired Semi-Working Senior
    Comment: It is essential that we support local farmers and 
encourage organic methods that lead to sustainable farming. If 
corporations are allowed to control the quality of food products and 
distribution solely for profit then we must object. Our government is 
our last hope for justice.
                                 ______
                                 
                         Comment of Mark Causey
    Date Submitted: Friday, May 11, 2012, 10:17 a.m.
    City, State: Snellville, GA
    Occupation: College Professor
    Comment: Please ensure that the new farm bill has protections for 
small and midsize farmers, encourages and helps new and younger farmers 
to get started, and favors local, sustainable and organic agriculture. 
It should encourage and support farm to school programs as well as 
expanding the availability of fresh foods to under-served and 
economically challenged areas.
                                 ______
                                 
                        Comment of Lisa Cavender
    Date Submitted: Friday, May 18, 2012, 4:16 p.m.
    City, State: Hartford, AR
    Occupation: Computer Services Technician, Fort Smith Public Library
    Comment: I strongly urge the members of the House Agriculture 
Committee to reconsider the current farm bill as it stands before you 
now. In particular, I ask that you reconsider cutting $4 million from 
organic research funding and also to reconsider cutting the funding to 
support Beginning Farmers by \1/2\. I feel very strongly that both 
organic farming and small farmers are the way to strengthen our health, 
our communities and our country as it strongly relates to our country's 
food safety.
    I also support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286); full funding of conservation 
programs, such as the Conservation Stewardship Program, and making sure 
that enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs; the implementation of all 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236); as well as maintaining the EQIP Organic Initiative.
    Thank you for you time.
            Yours in a healthy, organic future,

Lisa Cavender.
                                 ______
                                 
                          Comment of Toni Caya
    Date Submitted: Friday, May 11, 2012, 4:40 p.m.
    City, State: Woodstock, GA
    Occupation: MUST Cherokee Volunteer
    Comment: Please don't vote for this bill. Many people are without 
jobs and are having a hard time providing for their families since the 
economy is in such a mess! If the WIC or other means of help such as 
this is cut more people especially children will go hungry! Please 
reconsider voting for this bill, if for any other reason than for the 
innocent children!
                                 ______
                                 
                       Comment of Rebecca Cecena
    Date Submitted: Saturday, May 19, 2012, 2:40 p.m.
    City, State: Pine Valley, CA
    Occupation: Health Equipment Sales Rep.
    Comment: The only way for Americans to be healthier is to eat 
healthier. This means No chemicals, No GMO's and No hormones in our 
food supply. I am an organic gardener and strive to only eat and feed 
organic foods to my family of four.
    Please look to the future of all of our children, including 
farmers, and Do The Right Thing for everyone's health. Stop Pandering 
To The Big Money Ag Biz and their lobbyists. Thank you!
                                 ______
                                 
                         Comment of Emily Cecil
    Date Submitted: Friday, May 11, 2012, 1:04 p.m.
    City, State: Greeley, CO
    Occupation: Dietetic Student
    Comment: Sustainable farming practices, including organic and non-
GMO crops of grains, roots, fruits, and vegetables need to be 
subsidized in order to protect our current and future food supplies and 
to insure the health of future voters.
                                 ______
                                 
                        Comment of Amy Cederlind
    Date Submitted: Friday, May 18, 2012, 12:35 p.m.
    City, State: Lincoln, NE
    Occupation: Disabled
    Comment: Please fully endorse all provisions of H.R. 3286, fully 
fund the Conservation Stewardship Program and make sure any new 
insurance subsidies are tied to compliance with conservation programs, 
implement all provisions of H.R. 3236 and maintain the EQIP Organic 
Initiative in the new farm bill.
    It is very important that beginning organic, sustainable farmers 
have the funding and support they need to start and maintain their 
farms. It is crucial that our land, the treatment and care of our 
animals and the health of our nation be supported in this farm bill.
    Big Ag is to put it plain and simply evil. It has made our land 
sterile, our environments unhealthy, treated animals cruelly and 
disregards the health of humanity to make a profit. Sustainable organic 
farming supports the quality of the land. Free range, hormone free and 
grass fed animals provide more nutrients and are much healthier then 
Big Ag's pesticide grain fed, poorly treated, hormone filled animals. 
The obesity epidemic and health crisis in America can be directly 
traced to Big Ag practices in this country.
    Furthermore, GMO anything should in the least be illegal and at the 
most be labeled so that consumers know whether they are eating 
dangerous foods. Studies done in Europe have proven that GMO foods 
cause liver and kidney damage in mice. Hormone treated cattle has been 
proven to cause cancer and fertility issues in humans. Pesticides have 
been directly linked to cancer and other health issues in humans also.
    I just can't say it enough, we need sustainable, organic farmers in 
this country. We need to go back to the way farming was before Big Ag 
took over and companies like Monsanto and Tyson have completely 
monopolized our food sources with their greed and shoddy, unhealthy 
practices. Not to mention buying the USDA off so that people don't even 
know, unless they really educate themselves, what exactly is going into 
the food they eat.
    I for one will continue to spread the word about these practices, 
the corruption of the USDA by these companies and our governments' 
compliance with it and that eating local sustainable organic food is 
the only way at this time to avoid and not support Big Ag's evil ways.
    All of congress is elected, not by Monsanto or Tyson, but by the 
people. They may fill your re-election coffers but we are the ones who 
vote. I will be watching how this farm bill turns out and spreading the 
word to all of my friends, family and basically anyone I can as to what 
is in it and who voted to approve it. So I can guarantee that at least 
some of you will be affected by your vote on this bill (Mr. 
Fortenberry).
    Please do the right thing. You definitely have the support of the 
people of this country who vote if you do. We need healthy food, you 
need to stop supporting the greed of Big Ag business as usual and 
support sustainable organic farming that protects the land, the health 
and good treatment of our animals and the well being of our society. 
This is what you were elected to congress for.
            Sincerely,

Amy Cederlind.
                                 ______
                                 
                       Comment of Mona Cenatiempo
    Date Submitted: Friday, May 11, 2012, 5:49 p.m.
    City, State: Boonville, MO
    Occupation: Retired Registered Nurse
    Comment: America needs a farm bill that makes healthy food widely 
available to all Americans--including schoolchildren! We must provide 
flexibility for states to use existing food procurement programs to 
purchase fresh, healthy food from local farmers and ranchers.
                                 ______
                                 
                  Comments of Center for Rural Affairs
    Date: Saturday, May 19, 2012, 3:28 p.m.
    Name: Brian Depew
    City, State: Lyons, NE
    Producer/Non-Producer: Non-producer
    Organization: Acting Executive Director, Center for Rural Affairs
    Comment: Dear Agriculture Committee Members,

    Along with 2,200 of our supporters who signed their names to this 
testimony, we write today to ask you for a 2012 Farm Bill that supports 
the best of rural America--family farming and ranching, 
entrepreneurship, and vibrant communities.
    To that end, the next farm bill must include the following:

    1. Limit farm payments--Cap unlimited payments. They subsidize the 
        nation's largest farms to drive smaller operations out of 
        business. Unlimited subsidies are the single most wasteful and 
        counterproductive feature of current farm policy. Both farm 
        subsidies and crop insurance premium subsidies should be 
        subject to caps, so that payments are targeted to the small and 
        mid-sized farmers who need them most.

    2. Protect conservation programs--Conservation and good stewardship 
        of agricultural lands should be encouraged and rewarded. The 
        2008 Farm Bill included several conservation programs that were 
        steps in the right direction, and the next farm bill should 
        improve and enhance these programs. The Conservation 
        Stewardship Program and the Environmental Quality Incentives 
        Program Organic Initiative are especially valuable incentives 
        for farmers to conserve natural resources on their land. The 
        2012 Farm Bill should maintain strong support for both these 
        and other conservation programs.

    3. Invest in rural America--Investment in rural development has 
        fallen by nearly \1/3\ since 2003. Reversing this decline is 
        critical to creating and sustaining vibrant rural communities. 
        At minimum, the farm bill should fund two critical programs to 
        support rural entrepreneurship--the Value Added Producer Grants 
        Program and Rural Microentrepreneur Assistance Program. The 
        latter provides loans, training and help with business and 
        marketing plans to enterprises with up to ten employees.

    4. Support beginning farmer and ranchers--Getting started in 
        farming can be expensive and extremely difficult for even the 
        most motivated new farmer. The 2012 Farm Bill must seek a 
        cross-cutting comprehensive approach to address beginning 
        farmer and rancher needs. Among other things, it should provide 
        funding for the Beginning Farmer and Rancher Development 
        Program, increase set-asides for beginning farmers and ranchers 
        in conservation programs, and make credit easier to obtain.

    By incorporating these four critical elements, the 2012 Farm Bill 
will support our small towns and rural communities in building a better 
future. It will create good jobs, and reflect the highest values of all 
of America.
            Best regards,

Brian Depew,
Acting Executive Director,
Center for Rural Affairs.

    Date: Saturday, May 19, 2012, 3:57 p.m.
    Name: Steph Larsen
    City, State:
    Producer/Non-Producer: Non-producer
    Organization: Center for Rural Affairs
    Comment: Dear Agriculture Committee Members,

     The Center for Rural Affairs gave our supporters an opportunity to 
make comments about the farm bill. 700 people took the opportunity and 
time to write to you. Here are their comments.* Please consider them as 
you make decisions about farm policy. Rural Americans want caps on farm 
subsidies and crop insurance subsidies, strong conservation programs, 
help for beginning farmers and strong rural communities. Please 
prioritize them.
---------------------------------------------------------------------------
    * Editor's note: there are comments that are duplicated in this 
listing; however, they are retained as an overall part of the Center 
for Rural Affairs submitted comments.
---------------------------------------------------------------------------
            Best,

Steph Larsen,
Center for Rural Affairs,
Lyons, NE.

          (1) 90% of farms in the U.S. are deemed small by the USDA and 
        while we may only provide 10% of the production we supply our 
        local economies with good food to eat and jobs. Don't deny 
        small farms their due. There is more to consider than just 
        efficiencies of scale.
          (2) A cap on payments is long overdue.
          (3) A real turn toward sustainability in our food production 
        system is essential to our long-term ability to feed ourselves. 
        Think forward. Move beyond the status quo. Build a safe and 
        sustainable farm and food economy.
          (4) A very sad day in American when the small farmers that 
        love the Earth cannot be heard and their families be put in a 
        hardship situation.
          (5) A viable rural needs young farmers and young farmers need 
        financial encouragement to compete. Young farmers support the 
        local community. Big farmers often go direct to wholesalers.
          (6) Actually fund and utilizes the services listed in any 
        farm bill!
          (7) Additionally, small farms provide a source of fresh 
        produce to local residents in rural areas--providing healthier 
        food options with low transportation costs.
          (8) Agricultural communities today face numerous threats. 
        They include the consolidation of land ownership in the hands 
        of large farmers, corporate farms and investment groups. This 
        manifested itself recently when land in our area rented for 
        over $340 per acre. More recently there is an accelerating 
        assault on mineral rights and natural resources to facilitate 
        natural gas development by increasingly controversial practice 
        of ``Fracking''. This method of extraction appears to ignore 
        the stewardship that has long been the trademark of rural 
        communities. Remarkably, this process appears to be facilitated 
        by an opaque alliance of elected/appointed officials, 
        development practitioners and ``special interests''. The farm 
        bill needs to reconcile resources with need, and return equity 
        to a process that has transitioned from the support of 
        sustainable family farms to what appears to be corporate 
        subsidies.
          (9) Agriculture is the backbone of this great country of 
        ours. Please hear the voice of the rural American farmer. We 
        are struggling already to keep our rural communities alive. I 
        have two small boys that we are raising on our cattle ranch. 
        Without your support their future in agriculture and the future 
        of our family ranch is in great jeopardy.
          (10) Agriculture is the backbone of this great nation and 
        FAMILY farms and ranches are the heart of agriculture. The farm 
        bill needs to focus on Family farms and ranches and do whatever 
        it takes to help beginning farmers and ranchers get started in 
        the business to keep American agriculture strong and 
        flourishing.
          (11) Agriculture is the number one revenue stream in many of 
        our States and your job is tied directly or indirectly to its 
        success. The 2012 Farm Bill deserves your careful 
        consideration.
          (12) America has become way too much large corporation 
        oriented. It's about time that the political pendulum swing 
        back towards individuals and small producers. Otherwise we are 
        going to lose more and more of out liberties.
          (13) America needs more local organic family farms. The 
        health of the country depends on healthy citizens. Healthy 
        citizens make a prosperous country. Thank You.--Barry W. Wilt.
          (14) American agriculture is in a sad state. As a farmer I 
        feel caught in a system where my choice of financially viable 
        production practices is more about choosing the least harmful 
        practice to the environment and my community, rather than being 
        able to produce crops and livestock in positive sustainable 
        ways. Please don't cave to political hyperbole and corporate 
        pressures that will only result in an even more unhealthy, 
        industrialized agriculture.
          (15) American Farms are suffering. They need our help.
          (16) Americans depend on our small farmers, please support 
        the 2012 Farm Bill.
          (17) America's strength since before the war of independence 
        was always the small farms and farming families. Agrobusiness 
        doesn't need support; small farms do!
          (18) Another essential program to fund is the National Center 
        for Appropriate Technology's Sustainable Agriculture Project, 
        formerly known as ATTRA. It provides invaluable information to 
        farmers about how to work with the land and manage their 
        businesses in ways that regenerate the local ecosystem, which 
        in turn increases the stability of their business, decreases 
        the costs of healthcare and disaster relief in the region by 
        cleaning and stabilizing the ecosystem, and provides a 
        healthier future for our grandchildren.
          (19) Another thing that happens by supporting small farmers 
        is the increasing Farmers Market movement in the country. These 
        Markets encourage people to get together meet each other and 
        buy good food. What could be better?
          (20) Any logic for not doing what is put forth above 
        completely escapes me. I do not want continued welfares for 
        large farming operations to the demise of our natural resources 
        and family farm operations.
          (21) Any real chance at food sustainability has to include 
        support for small & beginning farmers!
          (22) Any reasonable person can understand that to be a good 
        steward to the land, there are limits as to how much land any 
        one landowner can manage. A government program that limits 
        payments to that reasonable limit is a responsible government.
          (23) Are hardworking farmers are a great benefit to a rural 
        community and they should be given a fair shake. The monster 
        farms, not so much.
          (24) As a beginning farmer I think it's pretty tough to have 
        a contract in its second year of three cancelled and see large 
        farms (with lots of money) in our area continue to receive 
        their funding and added funding . . . How does this work?
          (25) As a business owner in a rural community, we partner 
        with and support our neighborhood farms.
          (26) As a farmer in Rensselaer County, NY and particularly 
        one who is focused on grass-fed and grass-finished beef 
        production, I very definitely want to see full funding for the 
        USDA NRCS Grazing Lands Conservation Initiative, EQIP, CRP, and 
        WHP programs. More particularly we need to focus on the great 
        opportunities available to grazers in Up-state New York and New 
        England. In New York alone we have 3.5 Million Acres of unused 
        or under used grassland and proximity to the largest meat 
        consuming market in the country. Also, I will say ALL USDA 
        subsidies to corn and soybean producers need to End Now.
          (27) As a former migrant farm worker--I can only say that the 
        back-breaking, pesticide-illness-laden work of our farms 
        workers, is long overdue for humane compensation and work 
        conditions.
          (28) As a grandson of a late and successful farmer, it is 
        important that today's generation have the same opportunity 
        that my late grandfather did when he began farming, a long time 
        ago. Let's help the small and mid-sized farmer because farms 
        are an important component to our economy.
          (29) As a longtime resident of the south and a small farmer I 
        have a full understanding of the potential for agriculture in 
        the region both environmentally and economically--but it only 
        works if we return to the model of the small farmer! To do so 
        we need to be free of corporate lobbyist interests that make 
        small farms difficult to grow, to sell, and to start. I am a 
        young person with hopes of contributing to my community through 
        agriculture but have little hope to do so without legislative 
        support on the Federal scale. Thank you for your time and your 
        open ears.
          (30) As a member of California Rare Fruit Growers I am 
        constantly dealing with the problems caused by industrial scale 
        agriculture when the smaller operation, and even suburban 
        backyard growers get little or no help.
          (31) As a small farmer, I feel that I am a crippled David 
        against a healthy Goliath and it will get worse. Please make 
        changes with the small farm in mind.
          (32) As a strong supporter of organic farming, I strongly 
        advocate for organic farming systems and ask that you . . . 
        Fully fund the Organic Research and Extension Initiative (OREI) 
        at the 2008 level. Endorse all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286). Support all provisions of the 
        Beginning Farmer and Rancher Opportunity Act (H.R. 3236). 
        Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Program.
          (33) As a woman who raised award winning sheep on this farm 
        in an environmentally sensitive way for 47 years, I cannot 
        emphasize enough what programs like EQIP and the Conservation 
        Stewardship Program have meant to me! I rotationally grazed my 
        sheep on birdsfoot trefoil pastures for up to 10 months a year, 
        (in Minnesota), and I held my ground! No erosion here! I have 
        also been active in starting a very successful beginning farmer 
        program in MN 25 years ago, and it is still going strong. Stand 
        up for the small farmers, they are the backbone of this 
        country. Stop babying the CAFO's and the Big Corn and Soybean 
        Boys . . . they don't need it, they are bad for the land, and 
        THEY DON'T hold their ground!
          (34) As a young person interested in farming and healthy 
        food, it is critical that congress pass legislation that 
        prioritizes the creation of a healthy and sustainable food 
        system that allows for young people to take leadership, as well 
        as learn from the generations before.
          (35) As an organic produce farmer I have been an important 
        part of my community by providing year round and seasonal jobs 
        that pay at or above the going rate. Farm programs have never 
        offered anything to me until the EQIP and CSP program came 
        along. We now participate in EQIP and it is a valuable 
        incentive to invest in conservation measures that we value but 
        that are difficult to justify when creating budgets and doing 
        cost analysis. Please continue to include funding for them. 
        Also, please increase funding for specialty crop insurance. 
        Food farming is even more risky than grain and other commodity 
        crop farming and is equally important to our rural community's 
        health and the health of our urban partners--the consumers.
          (36) As an urban resident, I know the importance of 
        supporting rural communities, and especially small and mid-
        sized farms, but urban farmers need support as well.
          (37) At this time, it is important to support small 
        businesses including family farms and ranches. The big 
        businesses have enough, do the right thing.
          (38) Average of American farmers makes it a demographic 
        essential for beginning farmers to get a leg up.
          (39) Be Just to Rural America!
          (40) Beginning Farmers and Ranchers should be provided timely 
        job-related information and current awareness service by the 
        Extension agents.
          (41) Being from Mississippi, farm legislation is very 
        important to our state. Our rural towns are suffering and 
        Federal initiatives to support small business and family farms 
        is good for our communities.
          (42) Better wise up and start representing the constituency 
        that you're supposed to serve, not the monied interests and 
        corporate farmers that lobby for that huge AG bill payoff . . . 
        follow the lead of those who elected you or you will be voted 
        out of office.
          (43) Big Agri business is getting handouts while the smaller 
        farmers struggle with funding cuts and loss of Government 
        funding. Why is corporate America getting handouts for taking 
        their business overseas? Why are small farming communities 
        struggling to employ their citizens? Invest in Rural America! 
        Generate employment for Americans! Stop Corporate Agri-Business 
        welfare!
          (44) Big farming needs no help right now. It is the small and 
        organic farmers and their belief in conservation that is our 
        future.
          (45) Biochar and the Agrachar product will sustain the soil 
        that small farmers grow food with. Please save the soil, air 
        and water !
          (46) Bring back funding for the RC&D's, that group has been 
        missed this past year.
          (47) Bring back small farms and sustainability.
          (48) By subsidizing huge farms and feed lots you are damaging 
        Americans in the following ways: (1) destroying small farming, 
        (2) polluting our precious air, soil & water, (3) fostering the 
        ``foods'' that are most detrimental to our health: animal 
        products and high fructose corn syrup. Consequently, we will 
        also have to pay the cost for environmental degradation and 
        healthcare!
          (49) By supporting the smaller farms you are supporting the 
        small communities with the buying power of the many individuals 
        that will continue the support their communities. It isn't so 
        with the larger corporations who go elsewhere for their 
        supplies. They also do not comply as readily with the 
        conservation practices of the smaller farmer.
          (50) Cap unlimited farm payments. They subsidize the nation's 
        largest farms to drive smaller operations out of business. 
        Unlimited subsidies are the single most wasteful and 
        counterproductive feature of current farm policy. At minimum, 
        the farm bill should fund two critical programs to support 
        rural entrepreneurship--the Value Added Producer Grants Program 
        and Rural Microentrepreneur Assistance Program. The latter 
        provides loans, training and help with business and marketing 
        plans to enterprises with up to ten employees.
          (51) Cap unlimited farm payments; protect conservation 
        programs--everyone in farming should know that monoculture is 
        means death sooner rather than later--look up Irish Potato 
        Famine to learn more about monocultures. Small farmers usually 
        produce different crops to keep the soil productive and crops 
        healthy. Corporate farms rely on monoculture (and possibly GM) 
        crops and chemicals. Time will show this will kill us. Invest 
        In Rural America.
          (52) Cap unlimited payments and keep the programs that 
        support the small and mid-sized farmers that need the most. I 
        support the dialog that is presented above and hope that you do 
        the same. Thank You,
          (53) Cap unlimited payments. Thanx--John Proctor.
          (54) Capt. USAFNC . . . disabled 100% . . . beginning 
        sustainable farmer with the help of my family and the FVC . . . 
        Farmer Veteran Coalition. Pay attention and avoid another Post-
        Viet Nam mess . . . once was enough . . . this time help the 
        vets from the very beginning, not 30 years later.
          (55) Clean Up the River Environment (CURE) fully supports 
        these four critical elements of the 2012 Farm Bill.
          (56) Congress must end this collusion with big business 
        agriculture to eliminate the small farmers. Once a monopoly on 
        food is achieved by 2 or 3 conglomerates who will then supply 
        the bulk of America's food supplies, the lack of actual 
        competition will allow price fixing as has occurred in every 
        other financial enterprise in history. This is totally 
        unacceptable and cannot be allowed to happen. Support the small 
        American farmer and allow the competitive marketplace to 
        flourish as this is one of the cornerstones of a free market 
        society.
          (57) Congressman Lucas, where is the truth and transparency? 
        We only get double speak from you sir.
          (58) Conservation compliance should be tied to insurance 
        programs. That is one way that we ensure a return for our 
        investment in U.S. farms. We also need clean water and healthy 
        soils.
          (59) Conservation of natural resources and CRP programs are 
        very important and should be maintained or enlarged.
          (60) Corporate farming and ranching is killing the heart of 
        American farming and ranching, heritage and values. Government 
        subsidies and lenient regulation of corporate farms have led to 
        the demise of the quality food produced and to the extinction 
        of true farming and ranching in local communities across the 
        country. It is the small farms and ranches and their practices 
        that represent real food, real people and real America. Support 
        beginning farmers and ranchers and put an end to carte blanche 
        support of corporate farm and ranch enabling in America. Give 
        beginning farmers and ranchers are real chance to live and 
        continue the American Heritage of agriculture and ranching.
          (61) Corporate interests cannot continue to shape our 
        policies, especially on matters as important at reliable food 
        production. Having thousands of independent farmers is far 
        safer than a few larger corporate facilities that can more 
        easily fail, get bought out by foreign countries, or mismanage 
        their facilities and land. Our country was built by family 
        farmers, don't destroy them.
          (62) Could we consider fairness? . . . that seems to be a 
        word from a foreign language . . . But it is encouraging that 
        it is beginning to get some attention. I am retired but am a 
        willing cheerleader in your efforts.
          (63) Create insurance programs that work for beginning 
        farmers and diversified crop/livestock farms. Currently there 
        is no insurance for producers like that.
          (64) Crop Insurance and other farm payments must be tied to 
        conservation compliance to save our soil and water for future 
        generations. This should be national policy.
          (65) Current farm prices have been a boon to rural 
        communities, a cyclical decline in prices--which will happen 
        again--will be a real bust.

          (66) Cut Aid To The Largest Farms But Not Too The Small And 
        Mid Size Farms.

          (67) Dear Legislator, The 2012 Farm Bill is essential to our 
        nation's health. It is essential that we stop paying large 
        farmer's subsidies to continue to ruin the environment with 
        mono crop farming. We need to encourage small farmers to make a 
        significant contribution to the nation's output with special 
        crops that no large farm can produce. Thank you in advance for 
        your support.--Robert Friedman.
          (68) Dear Legislators: Please consider capping payments to 
        wealthy farmers. Did you know that wealthy farmers purposely 
        purchase new equipment and extra farm-services only to get out 
        of paying Federal taxes? Also, these wealthy farmers are at or 
        near retirement. That means 55 years old and up. Did you know 
        that the average U.S. farmer is 55 years old? What about our 
        beginning farmers? They can't hardly get their foot in the door 
        because farming is not affordable. And, right now, the land 
        market is too competitive. But, it won't be in twenty years. 
        Who will feed our country in twenty years? Almost every farmer 
        in my county is nearly sixty years old! Their children up and 
        moved away to the cities. They have no interest in farming. How 
        do we encourage beginning farmers? Support them. Invest in 
        rural communities. This means money. We're in trouble if we 
        don't. The future of U.S. farming relies on government action. 
        Put a cap on subsidies to wealthy farmers--they'll still farm 
        without them. They don't need a government reward. Reward the 
        beginning farmers that show an interest in feeding America now 
        and into the future. Let's throw conservation and mentoring 
        beginning farmers into the same hat. By nurturing both our 
        beginning farmers and our land we will be able to economically 
        and environmentally sustain our country. Thank you.--Hannah 
        Jakob.
          (69) Dear Sirs--Please consider the ``Transition'' (TIP) and 
        beginning farmers options that will most benefit our returning 
        troops and even those College graduates that need the help to 
        transition into farming as a profession.
          (70) Diversify, Diversify, protect small farmers not 
        corporate growers--they're trying to kill us.
          (71) Do not forget about the millions of small farmers who 
        continue to work hard to provide safe food and protect our 
        water and natural resources. Require people who receive 
        subsidies to live and work on the farm.
          (72) Do not forget the importance of the family farm to the 
        future of our small towns and small schools. The rural economy 
        needs more entry level farmers, not more absentee landowners 
        who see land only as a profit machine.
          (73) Do not forget what an actual farm is.
          (74) Do the right things and stop supporting huge corporate 
        farms who need it the least, even if they are the ones lining 
        Congress' pockets.
          (75) Do you represent us or the corporations?
          (76) Don't bend over for special interests. Do the right 
        thing.
          (77) Don't forget small towns and rural areas!
          (78) Don't forget the little guys.
          (79) Don't let Cargill run the show! And get them out of the 
        USDA! Notorious market-rigging ``Crop Reports'' are destroying 
        both USDA's and Congress credibility! Do your Job!
          (80) Each town, village & county needs to invest in rural 
        development. No more kissing up to the industrial mega 
        ``farms''.
          (81) End all payments and subsidies to corporate owned farms 
        and ranches (those not family-owned)
          (82) Enough has been said, thank you
          (83) Every farmer should be included.
          (84) Everything is for the corporation farms . . . who in-
        turn hire unionized works to help push up the prices of all 
        agricultural items . . . This country was begun because of the 
        family farms who supported the growth with prosperity to the 
        families and those who bought the goods from them . . . Don't 
        turn your backs on the small farmers who lively hoods depends 
        on what they grow (fruits vegs. live stock) and also show the 
        children the integrity and responsibility of a work ethic that 
        carries them throughout their live . . . (Protect conservation 
        programs. Invest in rural America . . . Support beginning 
        farmer and ranchers by incorporating these four critical 
        elements, the 2012 Farm Bill will support our small towns and 
        rural communities . . . in building a better future . . . It 
        will create good jobs, and reflect the highest values of all of 
        America.)
          (85) Every time we have a recession in the national economy 
        and, or inflation hits, value of our natural resources at the 
        farm gate decreases in relation to the cost of all purchased 
        inputs for their production. Rural producers are forced to cut 
        corners to remain in business, or produce a great deal more 
        with less. It does not take long to see that this system is not 
        sustainable, economically, environmentally or socially. Shall 
        we continue to support a system that is leading to either 
        foreign rule or corporate totalitarian rule? Who in our system 
        supports democratic principles? I was an Agricultural teacher 
        for 30 years and in my town the people closest to the land who 
        understood the basics of land stewardship, economics and civic 
        responsibility where primarily 60(small farmers). Every one of 
        them voted in the local government, today less than a dozen 
        live on the land and vote or participate in the local 
        government decision making process, though several have more 
        influence on local decision making than all the rest due to 
        political and business influence. What is happening to the 
        democratic system that we teachers taught for 30 years through 
        FFA and Experiential Education? Those people are all retired 
        and out of decision making. Who took their place? A few 
        corporate ``persons'', no doubt. What can you do about it? 
        Support small rural business, farming, and Agricultural 
        Education. Limit the subsidy to large Farms.
          (86) Factories are important. Farms are important. But 
        factory farms?
          (87) Factory farms are poisoning `we the people' and our 
        government is paid off to let it happen
          (88) Fair's fair! Let's help the metaphorical 99 percent of 
        family and smaller regular farmers keep their heads above water 
        and serve the 99 percent of us Americans.
          (89) Families in rural America can a little assistance in 
        this economy.
          (90) Family farms are a way of life. Corporate farming kills 
        this way of life--and kills small towns, too. Support small to 
        midsize family farms and help new producers get started!
          (91) Family farms are the true supporters of the American 
        people. The American people want fresh, local food that 
        supports their neighbors and local environment. Congress must 
        recognize this and support the family farms in return.
          (92) Family farms have been the backbone of America for 
        generations and generations. Mega/Corporate farms are not only 
        a fairly recent development, they are overwhelmingly 
        ecologically unsustainable and destructive. Don't reward the 
        mega-farms; support the family farmer!
          (93) Family farms have our interests in mind and they 
        understand the importance of taking care of the environment. 
        They need our support.
          (94) Farm payments should be limited to small farms and 
        AGRIbusinesses should be excluded
          (95) Farm payments to the nation's large farm corporations 
        need to be capped. It is the medium to small farmer that needs 
        the financial assistance. Conservation should be encouraged for 
        landowners if our country wishes to continue to have the 
        beautiful land we have now.
          (96) Farmers are NOT represented by Farm Bureau. The farm 
        bill must make things easier for small farmers--not large 
        farms.
          (97) Farming is a very comprehensive endeavor and the small 
        farm will save the U.S.
          (98) Farming is still important in the U.S. and congress 
        should provide funding for people like myself who want to start 
        a farm but lack the funding and need support and training to 
        achieve this dream.
          (99) Farming is the backbone of America. It is important that 
        we support rural farmers.
          (100) FDR started this to help the family farms survive. 
        Someone argued that was unfair to big and corporate farms so 
        they were included. Now whatever is left of the family farms is 
        forced out and only the biggest are allowed to survive. I 
        suspect this might be so that all agriculture is encouraged or 
        even forced to join the stock market and help support the 
        struggling Wall Street and bankers who seem to need much more 
        than they are now getting.
          (101) Food consumers want safe food choices that only small 
        farmers offer right now. The big companies care only about 
        profit and NOT the safety of the food sources. People do not 
        want GMOs, pesticides and other gross negligence to continue 
        from our agencies that are supposed to protect us. Those seats 
        are filled with self-agenda seekers who only are working for 
        their own agenda, NOT the safety of the food Americans eat. 
        Once we poison all of this generation there won't be a way to 
        undo what has been done. Is anyone listening to American 
        people?
          (102) Food is a necessity, not a commodity. We need the next 
        crop of small farmers to provide fresh, local, organic foods to 
        our communities. Agribiz can hike somewhere else. We don't need 
        vast monocultures, genetic modification or chemical 
        conglomerates owning our seed stock.
          (103) Food is our most valuable natural resource. We should 
        not leave it to corporate profit to determine how and what we 
        grow what goes on our tables. Please support sustainable, safe, 
        and healthy agriculture. It is good for the farmers, good for 
        us, and good for those who come after us.
          (104) For a strong healthy agricultural base for our country, 
        invest in small farms. The repeated pollution-events from mega 
        farms is shameful and should not be encouraged by subsidies.
          (105) Forestry is part of America's agriculture, don't forget 
        it. conservation and rural development go hand in hand.
          (106) From the ground up . . .
          (107) Fund programs that get fresh food direct from farmers 
        into schools to get a new generation excited about fresh 
        healthy food.
          (108) Get in touch with the small farmers, the organic 
        farmers, the people who truly steward their land, and stop 
        being tools of Big Ag and the lobbyists for companies like 
        Monsanto
          (109) Get rid of ethanol subsidies as well as ethanol 
        programs, the use of 40% of U.S. corn production on ethanol, 
        more than is used on livestock feed or human consumption . . . 
        a product that is a hydrocarbon net loser, is absurd . . . 
        advocate a non food source oil source for running diesel 
        engines on pure oil, not biodiesel, another net loser . . . 
        pure vegetable oil to run diesel engines for farm and highway 
        use, from crops grown by small landowners and small 
        entrepreneurs to distill the oil into usable form . . . just 
        make Detroit/Japan/Korea/etc. get on board w/ technology that 
        was proven at world's fair in 1900 . . . a non food source oil 
        for diesel engines, grown by landowners w/ 200 acres or less . 
        . . Yours in utter dismay--Stephen Murphy
          (110) Get the lead out! Limit payments to mega farms and 
        dummy corporations
          (111) Get your hands out of the working man's pockets!
          (112) God bless--do continue to help the ``little person''
          (113) Good demand for grain crops at this time has made grain 
        prices raise to a proper level so direct payments are not need 
        at this time. Weather is the problem. It can destroy a crop in 
        a very short time so the Crop insurance program is critical to 
        keep but it must be supervised by USDA to keep it working 
        properly for all areas of farming.
          (114) Government ``subsidies'' aid American farmers provide 
        the lowest percentage of food costs of any nation in the world.
          (115) Gov't programs should level the playing field by 
        encouraging young beginning farmers. The established farmers 
        don't need assistance.
          (116) Healthy food production needs assistance, not corn for 
        methanol, sugar for creating unhealthy foods, tobacco (for 
        obvious reasons), and more wheat.
          (117) Help save the smaller farmers--they need it.
          (118) Help the small family farms of America. They are what 
        this country was built on. Don't desert them now. I don't want 
        the factory farms to eat up the land. Help young soldiers come 
        home and start their farms and their families. That is what 
        America is about.
          (119) Help the small farmers and those just starting out.
          (120) Help the small farms which are the back bone or our new 
        farming systems that are closer to the end-user.
          (121) Help those who have helped us
          (122) Help those who need it most. Isn't that what subsidies 
        are for?
          (123) Helping small family farms get started creates more 
        jobs than one factory farm. We need more farmers.
          (124) Here in northeast Iowa we are proud of the many small 
        farmers who feed us healthful, local, and often organic 
        produce. We believe they deserve the same consideration and 
        support as large commodity producers. In fact, we believe they 
        are contributing more to soil and environmental health than 
        industrial agriculturalists.
          (125) Hi: I want to repeat what has already been said. The 
        2012 Farm Bill must support the best of rural America--family 
        farming and ranching, entrepreneurship, and vibrant 
        communities. To that end, the next farm bill must include the 
        following: 1. Limit farm payments--Cap unlimited payments. They 
        subsidize the nation's largest farms to drive smaller 
        operations out of business. Unlimited subsidies are the single 
        most wasteful and counterproductive feature of current farm 
        policy. Both farm subsidies and crop insurance premium 
        subsidies should be subject to caps, so that payments are 
        targeted to the small and mid-sized farmers who need them most. 
        2. Protect conservation programs--Conservation and good 
        stewardship of agricultural lands should be encouraged and 
        rewarded. The 2008 Farm Bill included several conservation 
        programs that were steps in the right direction, and the next 
        farm bill should improve and enhance these programs. The 
        Conservation Stewardship Program and the Environmental Quality 
        Incentives Program Organic Initiative are especially valuable 
        incentives for farmers to conserve natural resources on their 
        land. The 2012 Farm Bill should maintain strong support for 
        both these and other conservation programs. 3. Invest in rural 
        America--Investment in rural development has fallen by nearly 
        \1/3\ since 2003. Reversing this decline is critical to 
        creating and sustaining vibrant rural communities. At minimum, 
        the farm bill should fund two critical programs to support 
        rural entrepreneurship--the Value Added Producer Grants Program 
        and Rural Microentrepreneur Assistance Program. The latter 
        provides loans, training and help with business and marketing 
        plans to enterprises with up to ten employees. 4. Support 
        beginning farmer and ranchers--Getting started in farming can 
        be expensive and extremely difficult for even the most 
        motivated new farmer. The 2012 Farm Bill must seek a cross-
        cutting comprehensive approach to address beginning farmer and 
        rancher needs. Among other things, it should provide funding 
        for the Beginning Farmer and Rancher Development Program, 
        increase set-asides for beginning farmers and ranchers in 
        conservation programs, and make credit easier to obtain. By 
        incorporating these four critical elements, the 2012 Farm Bill 
        will support our small towns and rural communities in building 
        a better future. It will create good jobs, and reflect the 
        highest values of all of America. I hope you will consider 
        these point when you vote and make decisions on the behalf of 
        farmers and ranchers. Sincerely--Erik Cleveland.
          (126) How about showing support for the family farmers who 
        are ``hanging on'' to their legacy? It's time someone at the 
        bottom gets rewarded.
          (127) How can small produce and pork producers get any help ?
          (128) I agree help the small farmer and stop giving to huge 
        corporate run farms . . . These laws were meant to help small 
        struggling farmers not mega giants . . .
          (129) I agree with the National Rural Life Conference, we 
        need a better farm bill. Do not take money from SNAP.
          (130) I am 17 years old and beginning my career in organic 
        agriculture, We young and beginning farmers need the 
        governments help to regenerate the land and boost our local 
        economies.
          (131) I am 25 years old and have just started working on a 20 
        acre organic farm in western Minnesota. We are an organic 
        island in a sea of Round-Up Ready; all the huge farms around 
        us, soy and corn mostly, are conventional farmers destroying 
        their land, and ours with chemicals, and are recipients of 
        insurance subsidies. While we're out 10 hours a day hand 
        weeding and cultivating, the farmers across the road throw 
        their seed in the field and hope for disaster, because in most 
        cases they'll get more money from the insurance than from the 
        actual crop. This is a backwards way to encourage people to go 
        into farming, to provide the real food that our communities 
        need. Support organic and support healthy soil that can keep 
        feeding our country for generations. Support local farms and 
        support the local economies that keep our country running. 
        Please support these points on the farm bill.
          (132) I am 34 years old and have been around farming my whole 
        life. I have always wanted to farm, but I find it impossible to 
        get started.
          (133) I am a beginning Farmer in Connecticut and I just 
        funding cut--not too happy when I am seeing local large truck 
        farmers still getting their payments . . .
          (134) I am a beginning farmer in western Montana. I would not 
        be able to develop my farm business without programs such as 
        NRCS' Organic EQIP program that cost shared critical 
        infrastructure to get my business going. Please keep money 
        designated to programs that kick start farmers like myself.
          (135) I am a beginning farmer who produces mixed vegetables, 
        the continual growth of large scale monocultures that are 
        decreasing the economic resilience of rural economies, 
        decreasing the amount of people (and jobs) needed per parcel of 
        land, and encouraging practices that poison our land and water 
        should not be subsidized by the government to continue running 
        out family farms and increasing the price of land barring all 
        those except large players to enter the market. I appreciate 
        your attention to this issue.
          (136) I am a small farmer who has received absolutely no 
        Federal aid to build an aquaponic greenhouse and sustainably 
        manage my land . . . because there are no funds available. You 
        bet I'm concerned.
          (137) I am a young farmer, ready to spend my life providing 
        food for my country, thanks for listening to my voice
          (138) I am among the small farmers who are fortunately not 
        affected by the lack of any subsidy but I am among a minority 
        who are fortunate enough to find ourselves in this position. 
        Too many larger operations than mine are essentially living 
        from hand to mouth while the largest operations are awash in 
        cash and have no trouble receiving subsidies. If it weren't so 
        pernicious it would be funny but none of us are laughing. It is 
        well past time for both sides of the aisle to recognize we are 
        all Americans an stop with the partisan gridlock that is 
        strangling the majority of the hardest working sectors of our 
        economy. Try digging a hole and setting a fence post by hand 
        and you will get the picture.
          (139) I am an experienced small farmer, and I recognize the 
        need to support enthusiastic young farmers who are the future 
        of our national food security. Please make sure that beginning 
        farmer programs continue to be funded, as well as programs like 
        EQIP that can help beginning and disadvantaged farmers with the 
        funds they need to get started with farm infrastructure. Thank 
        you.
          (140) I am disgusted that big farms have subsidies at all, 
        and dismayed at the many cuts to small farm programs and to 
        farmers market nutrition programs. Big agribiz does not need or 
        deserve help from my taxes but small farmers struggling to help 
        bring quality food to their neighboring communities do. Cap 
        Payments to large farm producers!
          (141) I am for conservation programs and helping farmers save 
        their land. HOWEVER, there needs to be a limit and we NEED 
        small and mid size farmers to be able to sustain their living. 
        Please CAP the unlimited payments and reward good stewardship 
        by supporting the Conservation Stewardship Program and the 
        Environmental Quality Incentives Program Organic Initiative.
          (142) I am not for sale, are you? End crony capitalism or the 
        voters will.
          (143) I am sick to death of for-profit legislators that sell 
        out their constituents.
          (144) I am speaking up for small farmers urban and rural and 
        for those of us that want to obtain our food from the small 
        producers that utilize sustainable practices and that produce 
        food that myself and many others I know want to eat. It is 
        apparent as well that the notion of free enterprise doesn't 
        exist and that many of those that claim that there is too much 
        regulation that constrains business don't mind legislation that 
        is protectionist and opens the public coffers to them always at 
        the expense of small producers, the working classes and of 
        course the poor. This is shameful yet representative of the 
        take over of government branches, Do the right thing and 
        support the producers that need the most assistance and those 
        of us that want THEIR food!
          (145) I am writing you in support of a 2012 Farm Bill that is 
        supportive of small and medium size farms and ranches that 
        operate sustainably taking into consideration environmental 
        stewardship and the need for a safe and nutritious food system 
        for this country. The 2012 Farm Bill needs to encourage and 
        support local and regional food systems that connect growers to 
        their local markets. There needs to be support in the farm bill 
        for capping payment and crop insurances that is equitable and 
        supportive of smaller growers. As the population of farmers and 
        ranchers age, we need to promote careers in sustainable 
        agriculture and to promote the entrepreneurial spirit in U.S. 
        Agriculture. This is not an endorsement for the corporate 
        framing model. The 2012 Farm Bill needs to support a greater 
        link within our food system between rural and urban 
        communities. I have been instrumental in the promotion of Urban 
        Agriculture in Detroit, MI. and continue to promote educating 
        the community, particularly youth, on matters of sustainable 
        agriculture practices. I appreciate this opportunity to share 
        my views with you as together we create a more sustainable and 
        equitable food security system for this great nation.--Rick 
        Samyn.
          (146) I believe all subsidies should be shared equally.
          (147) I believe Oregon's Delegation knows the importance of 
        the small family farmer and rural farms, but they cannot 
        compete with big corporate farms. Your voice is more important 
        than ever.
          (148) I believe that there definitely needs to be caps on 
        payments to large farmers and more help focused on small to 
        mid-sized farmers. More help for individuals that would like to 
        begin farming, that do not have substantial resources available 
        to them or a family to back them up. I am an individual that 
        would love to enjoy the farming way of life, but do not have 
        the resources to start myself at this time.
          (149) I do not agree that GMO crops are the same as natural 
        or heirloom crops, I believe they should be studied and tested. 
        Not rubber stamp approval
          (150) I don't like to see big payments going to big operators 
        so they can continue converting oil into ``food'' in non-
        sustainable ways. I work with college students that would love 
        to go into farming to grow healthy food at a fair price. How do 
        we help them?
          (151) I don't think small farmers should have a cap on 
        payments because then how will they ever become big farmers.
          (152) I don't think this farm bill should even be on the 
        table until the presidential election is over. Right now we 
        have too many paid for Republicans. They are on the dole and 
        bought and paid for by factory farm interests. If the rural, 
        small farm, and conservation interests are not taken care of I 
        plan on voting everyone of them out of office.
          (153) I favor a level playing field for small farmers, 
        including new farmers. It's only fair.
          (154) I feel it is critical for small farmers to be able to 
        take back some of the gro9und that they once were able to farm. 
        They are the backbone of America's meaning!
          (155) I grew up in Rural Nebraska and know how vital running 
        a farm is to the community. Allowing for the growth of new 
        young farmers is important to keep the community thriving.
          (156) I grew up on a 160 acre farm in Southern Illinois . . . 
        and my farming community is dead; the people scattered, and the 
        land is mostly unfarmed It was not the soil giving out, but the 
        pressures and price changes and the price controls by large 
        corporations (read: The Omnivores' Dilemma) that destroyed my 
        farming community. Today, thanks to those manipulated price 
        structures and subsidies to giant corporate farms, small 
        farmers are an endangered species. Small farmers, like small 
        business everywhere are the backbone of American ingenuity and 
        entrepreneurship; they are part of the wholesome part of 
        America that has built us into a strong nation. And we are 
        losing that. Please support small farmers, keep subsidies for 
        small farmers above and beyond the subsidies for the large and 
        wealthy factory farms. This is a part of America we can't 
        afford to lose.
          (157) I have been a long time supporter of the Center on 
        Rural Affairs and my parents supported the Center before me. 
        They truly represent the best interests of the rural 
        communities and those who produce our food. I join their 
        comments.
          (158) I have seen these outrageous payments for large farmers 
        for decades. We have budget problems and farmers have very high 
        commodity prices. It is now the time to stop this nonsense. If 
        you do not it tells me you do not care about the deficit and it 
        is just lip service.
          (159) I have two daughters who currently farm with me who 
        want to own their own operation in the future and will need 
        this type program to make that possible.
          (160) I know it is hard for you to put yourselves in someone 
        else's shoes. But you are intelligent people. Please do what is 
        right and return our agriculture back into the valuable system 
        it is supposed to be. Thank you.
          (161) I know this won't do much good, the fat cats will still 
        get their payoffs from the entrenched--but maybe someday you 
        will have an honest streak and stop the payola to BigAg and do 
        what is right and support small family farms. We Do Not Need so 
        much corn! Disgusted with all you paid for rubber stamps in 
        D.C. . . .
          (162) I like to have funding for beginner farmer without 
        stipulation of pre-farming experience.
          (163) I live in Texas on a small farm. I am sick of this 
        going on year after year, the Big Ag farms getting their 
        subsidies when their profits don't even warrant subsidization. 
        You are supposed to look out for the farmers who need help.
          (164) I live in town now, but I still have family and friends 
        on the farm. Most of them are old. Rural communities will die 
        unless these changes are made to encourage young people to live 
        and farm in rural Kansas and other states.
          (165) I myself have taken advantage of the beginning farmer 
        programs offered. They helped me to better understand the 
        importance of conservation and land stewardship. they also gave 
        me a jump start into being a producer
          (166) I really want support for beginning farmers.
          (167) I really wish that they would help out beginning 
        farmers like myself. Till this day they have denied me help but 
        i won't stop trying because we are the future of community 
        supported agriculture. Thank you.
          (168) I respect stewardship and conservation on agriculture 
        land. I believe that stewardship of the land is linked with the 
        small communities in farm country. I support resources 
        dedicated toward developing and enhancing vibrant rural 
        communities in the farm program.
          (169) I should hope that I can look at my law makers with 
        respect by the time I will pass my bar exam and that justice IS 
        being served on behalf of small beginning farmers even at the 
        expense of the large ones. You would not want to hear me at any 
        of your hearings sir/madam.
          (170) I should not have to pay income taxes to support 
        millionaires.
          (171) I shudder to think what our food would be like if there 
        were only a few big and influential farm-concerns left. Please 
        don't let that happen.
          (172) I stand with Justin Doerr. All returning vets need 
        financially and emotionally supportive programs to reintegrate 
        them into society. Justin's choice to farm (organically, I 
        hope) lends new meaning to the phrase, ``Food not Bombs!'' 
        Please support Justin's ideas and all others that peacefully 
        reintegrate our hard-working, often traumatized vets into 
        society. If we have money for war, we can find money for these 
        life-giving, creative programs.
          (173) I strongly agree that farm payments need to be limited. 
        The ``large'' farms are not the ones that supply the farmers 
        markets and get food directly to the consumer.
          (174) I strongly concur with all of the recommendations made 
        by the Center for Rural Affairs, and I respectfully urge you to 
        act in accordance with them. Thank you very much. Sincerely--
        Matt Meacham.
          (175) I strongly support Justin's position . . . it is in 
        America's best interest . . .
          (176) I support a cap on unlimited payments. The farm bill is 
        meant to help family farms, not large corporations whose mantra 
        has been profit over conservation and sustainability.
          (177) I support beginning farmers and ranchers. They are the 
        heart of family and small business enterprises. It is important 
        to support our small towns and rural communities in efforts to 
        create good jobs and support the American Dream.
          (178) I support FAMILY farmers and sustainable agriculture.
          (179) I support organic, local farms. Please help support 
        them as well. Provide good healthy food, keep the environment 
        clean and healthy and create new jobs. Please, Please support 
        this bill!
          (180) I support programs for beginning farmers and land 
        conservation.
          (181) I support programs for beginning farmers and land 
        conservation. I believe farm payments should be capped--to 
        reinvest in rural development and the small and mid-sized 
        family operations that need them most.
          (182) I support programs for beginning farmers and land 
        conservation. I believe farm payments should be capped--to 
        reinvest in rural development and the small and mid-sized 
        family operations that need them most.
          (183) I support small farmers and ranchers. I believe you 
        should re-think this bill.
          (184) I support the four critical elements outlined above, 
        and believe that they MUST be included in the 2012 Farm Bill.
          (185) I support the small farmer, all need to be supported, 
        but the big farmers are like corporations, they need to lose 
        their perks
          (186) I think it time to end all farm subsidies. Crops are 
        atr record prices, insurance all but eliminates any risk, The 
        large corporate farmer is milking the system. End all subsidies
          (187) I think it's vitally important to give new farmers a 
        chance to get started farming, especially on small, organic 
        farms. Giving Vets this chance is doubly important. Thanks.
          (188) I urge our legislators to do all in their power pass 
        legislation that will protect the small family farmer and make 
        it possible for more young people to begin farming. Small 
        family farms have always been the backbone of our nation. The 
        small farmer takes better care of the land than these owners of 
        huge farms who are interested in buying up as much land as 
        possible.

          (189) I Urge You To Support A Bill That Provides Money For 
        Farmers Of Fruit And Vegetables And Not Just Corn, Cotton, And 
        Soybeans. Our National Obesity Epidemic Needs To Be Fought With 
        Better And Affordable Food. Also Support The Conservation 
        Easement And Protection Parts Of Farm Legislation.

          (190) I want my tax dollars used to support small and 
        moderate sized farms that produce food locally, sustainably by 
        people who are invested in the health of their land and local 
        economy.
          (191) I want small farms and beginning farmers to receive the 
        support they need to run successful farming businesses.
          (192) I want the farm bill to emphasize support for small 
        farmers, rather than agribusiness. The bill must include 
        provisions that facilitate small farmers' success. Programs for 
        veterans should get special attention and long-term support/
        funding.
          (193) I want the farm bill to support family farmers and 
        organic agriculture, not factory farms.
          (194) I want to be a farmer someday . . . and I don't plan on 
        it being any more difficult than it should be.
          (195) I want to say increase the number of minority women 
        like to me in this farm bill. I need space to create space on a 
        farm in East county to crow yams for my business. Please give 
        me some options. Thank you.--Beryl McNair.
          (196) I want to see folks buy clean, healthy, local and 
        affordable food. Statistics show that I'm not alone. You want 
        to build your campaign war chest. Perpetual campaigning and 
        bowing to the biggest donors supports that statement. Our 
        interests are not aligned. Casting your vote for favors 
        (campaign contributions) paid with taxpayer money (subsidies to 
        massive operations) is not doing the vast majority of the 
        public much good. Please, please take a stand and support 
        beginning and small farmers and ranchers. Support the ancillary 
        businesses involved with these smaller operations, i.e., small, 
        independent food processors, packagers, butchers and etc. This 
        will increase jobs and decrease waistlines (medical expenses). 
        Be a hero and save some small communities from going the way of 
        the ghost town, while you're at it. You help us; we'll help 
        build that war chest of yours. Hundreds of thousands of small 
        donors will have no problem outpacing a few big donors. Farmers 
        Market season is upon us. I'd love to campaign for a legislator 
        that campaigns for me. Thank You.
          (197) I want to see payment limits! Stop abusing a logical 
        system (intended to support farmers during occasional hard 
        years) to routinely subsidize corporate farms
          (198) I was told that internet petitions mean nothing to 
        Legislators. But, I will sign anyway. Small farms need help to 
        establish and survive. More and more are developing out of 
        passion and necessity and it seems the Federal Government is 
        trying to squash them. Only the Legislators can make a 
        difference to help small farms and if they don't, we will vote 
        them out. Because, people are tired of big government and big 
        food. They want small local farms back.
          (199) I whole heartedly agree that raising the payment 
        limitation resulted in government funded expansion of larger 
        farm operations. Farm payments were designed to insure that 
        average sized farms could stay in business through the tough 
        years. Allowing larger payments gave operators funding for 
        larger machinery and land, crowding out smaller farmers.
          (200) I would like a bill that supports sustainable 
        agriculture, organic interests and the research and people 
        interested in innovative integrated agricultural systems that 
        take the best of organic and conventional practices in order to 
        design new cropping systems that limit environmental impacts 
        while maintaining economic viability. Incentivize 
        environmentally sound agronomic practices even if they require 
        diversification!
          (201) I would like the farm bill to support sustainable 
        farming initiative by the small local farmer which would 
        encourage and enhance their ability to sell locally. This 
        includes beef, eggs, chickens, and raw milk.
          (202) I would like to thank Senator Debbie Stabenow for her 
        efforts on the farm bill and the favorable ``specialty crop'' 
        provisions. However, more needs to be done
          (203) I would reiterate, cap or do away with farm subsidies 
        and insurance subsidies. These subsidies should target small 
        farmers who need them to weather tough times, not to industrial 
        ``farms'' who use them to drive down price, compromise food 
        safety, and maximize short-term profits at the expense of the 
        land and the consumer.
          (204) If Congress keeps on taking stands from lobbyists, 
        these officers should all step down. They are no longer for the 
        people. Below is what we want, not GMO crops, nor dead animal 
        carcass
          (205) If smaller farms go under, we'll have sold-out our 
        entire agricultural production means to the corporations.
          (206) If the wealthy corp farmers get 90% of Government 
        payments, lets change it to wealthy get 10% and the poor and 
        middle class get the 90%. You would have a more stable market 
        in agriculture and no one would be squeezed to struggling 
        condition of survival. actually there would more business for 
        the equipment manufactures and more jobs available.

          (207) If We Can Help The Banks We Should Help A Young Farmer 
        Get Started!

          (208) If we hope to have any future. If we want to return to 
        quality foods, community, and right lively hood. We need to 
        ensure that it's not only big business and the rich who can get 
        started in farming.
          (209) If we want the USA to become more sustainable, the farm 
        bill must reflect the needs of rural farmers.

          (210) If We Want To Help Young People Be Employed Then 
        Helping Them Get Started In Farming Is Essential. Hats Off To 
        Young People Willing To Work Hard To Feed The Citizens Of Our 
        Country! We Owe Them Our Support.

          (211) If we're going to subsidize we should give more to 
        ``special crops'' (what regular people call food) and less to 
        row crops which are primarily farmed by corporate farms.
          (212) If you don't help the small and midsized farmers you 
        are un American.
          (213) If you pass any more farm bill components that benefit 
        the conglomerate farmers, and deny family farms to start and 
        succeed, you are no different than any of the major U.S. 
        corporations who had to learn the hard way that shipping jobs 
        outside of the portion of the economy that ensures their 
        future, and you should be ashamed and abolished from future 
        representation of ANY American other than yourself!
          (214) I'm a small farmer and wouldn't be anything else. 
        Please do the right thing!
          (215) I'm trying to start a small farm here in whites creek 
        tn and setting aside money for ventures like my families is 
        what helps us get started. This is a bill that could really get 
        small business started and sustained here in TN. Include money 
        for small and mid-sized farms!
          (216) I'm volunteering about 20 hours a week to provide 
        support & guidance for our community's farmers' tailgate 
        market. Please include our small farms in funding for their 
        fiscal health.
          (217) I'm w/a disabled Marine and I held on to 25 ac. for 29 
        yrs living in another state. Since the economy has gone down 
        the home we live in in VA we can't buy and plan on utilizing my 
        land to live and do a start up farm helping Vets somehow. Those 
        that own around my acreage have caused nothing but problems 
        including destroying wetlands. I spent days researching my 
        local area FSA and Conservation Program contacts, loan data 
        programs you name it if I could find something useful I hunted 
        it. Lotta Veterans are looking to farm don't leave a Vet out 
        because they do represent the future of rural towns and their 
        existence. Heck where my land is the population is 3,800 in 
        town yet they managed to produce an Eagle Scout who is building 
        a Memorial to Vets whom passed from the town, 28 in all.
          (218) In a growing population of small farmers, specialty 
        crop growers and multiple species herding operations, we need 
        to realize that people want to grow and raise their own 
        ``healthy'' food. sustainable farming is the future, NOT the 
        big corporate farms. Please support the small acreage farmer as 
        they are our future for nutritious food.
          (219) In addition, each thriving small farmer can help reduce 
        our dependence on gas & oil for transportation and also get 
        produce to the table while it is still fully fresh and 
        healthful.
          (220) In addition, it is critical to fully maintain support 
        funding for the National Organic Program (NOP).
          (221) In addition, please maintain funding for the Outreach 
        and Assistance for Socially Disadvantaged Farmers and Ranchers 
        (OASDFR) program. This a vital program for helping the next 
        generation of farmers.
          (222) In my opinion, small farms are the only thing between 
        us and a looming food shortage. Mega-farms, not only deplete 
        the soil by not rotating crops, they poison our land by dumping 
        huge amounts of chemicals, and consequently, they poison our 
        water supply. In addition, GM crops also contaminate ``clean 
        fields'' and they use even more chemicals than conventional 
        crops. If we are to survive as a species, we must assist the 
        small farmers. For they are the last line of defense.
          (223) In my opinion, the farm bill is critical to those of us 
        in rural America. Please support a farm bill that creates 
        opportunities for farmers instead of further putting them at a 
        disadvantage.
          (224) In Oregon, healthy, sustainable, and financially stable 
        local family farms are an absolute necessity for community 
        vitality. The health of the land and promoting the next 
        generation of farmers is the life blood of our future. The 2012 
        Farm Bill is a make or break bill for the future of Oregon.
          (225) In summary, please help support family farms in 
        Kentucky by using the above measures. Thank You
          (226) In these difficult budget times it is ridiculous to 
        extend taxpayer dollars to the largest corporate farming 
        operations. They have the efficiencies of scale to compete on 
        their own--without any government payments.
          (227) Include greater incentives for organic and sustainable 
        practices, land preservation and perhaps reimbursements for 
        acknowledging and preserving endangered species found on the 
        property.
          (228) Increasing funding and attention to small local farms 
        and beginning farmers is vital if an effort to save and restore 
        our economy is what our ultimate goal really is.
          (229) Industrial farming is bad for the environment, rural 
        communities, food quality, young farmers, and our health. The 
        U.S. government should not subsidize corporate farming.
          (230) Instead of large payments for a few big farmers we need 
        to support more young farmers who want to start farming as well 
        as efforts in conservation in hopes of having stronger rural 
        communities.
          (231) Invest in individual development accounts for beginning 
        farmers and ranchers--access to land and capital are the two 
        biggest factors preventing farmers from getting started.
          (232) Invest in rural America--Investment in rural 
        development has fallen by nearly \1/3\ since 2003. Reversing 
        this decline is critical to creating and sustaining vibrant 
        rural communities. At minimum, the farm bill should fund two 
        critical programs to support rural entrepreneurship--the Value 
        Added Producer Grants Program and Rural Microentrepreneur 
        Assistance Program. The latter provides loans, training and 
        help with business and marketing plans to enterprises with up 
        to ten employees.
          (233) Invest in rural America and small farmers and ranchers!
          (234) Investing in rural America is critical for our nation's 
        future. Please protect our children's future and stop giving 
        large corporate farms unlimited resources.
          (235) It has been shown that food produced from small, 
        organic operations is the healthiest. Where would you like to 
        get your food from? Support small farms!
          (236) It has never been more crucial to protect, support and 
        grow our smaller-to-midsize ag operations and invest in rural 
        America. It is imperative to cap unlimited payments to the huge 
        corporate farms and foster and protect smaller operations in 
        order to keep diversity and fairness in the marketplace. No 
        less important is real, substantial support of conservation and 
        agricultural stewardship programs. We must feed the world, and 
        that must drive the decisions made regarding the 2012 Farm 
        Bill. There is more riding on these issues than simply who gets 
        the money . . . rather, who will feed us affordably and 
        maintain a venerable, now vulnerable way of life. Rural 
        Americans are still the best stewards and the steadiest 
        environmentalists of the Earth. It is a natural result of 
        making your way and living close to the land. Protect and 
        invest in rural America. The average age of the Sandhills, 
        Nebraska commercial cattle rancher is about 73 . . . Who will 
        replace him/her? Support new farmers and ranchers ,create 
        opportunities for more and better jobs in our rural areas. A 
        good example is the CO Rural Rehabilitation Program which 
        allows motivated individuals to find funding for agribusiness 
        in creative ways ,important in that current banking policies 
        have NO interest building or even supporting growth in ag. In 
        fact banks have been known to state that they have interest in 
        lending ONLY to those who don't need financing; those 
        inheriting ag operations, for example. You represent us--so 
        represent our interests. Thank you.
          (237) It is a travesty to see money flowing to large 
        operations while small and beginning farmers struggle 
        desperately to survive. Please find it in your hearts to help 
        hard working people who love the land and strive to raise 
        quality animals and crops, while protecting the environment.
          (238) It is critical that farm policy do two things: (1) 
        support small and mid-size operations, and (2) maintain limits 
        on the amount of subsidies available to a one ``farmer.''
          (239) It is extremely important in this time of economic 
        hardship to do everything possible to assist the small family 
        farm and those trying to get started in farming and ranching. 
        the economic impact of small farms/ranches in rural areas are 
        much more than most people realize. Please help protect and 
        support a treasured way of life.
          (240) It is high time to make meaningful changes in the farm 
        bill. You've been making excuses for years. Cap those subsidies 
        and put the money into the conservation programs as well as 
        Beginning Farmer programs.
          (241) It is imperative that we encourage young beginning 
        farmers in every way we can!
          (242) It is important to protect our local food supply, but 
        not at the expense of our environment. Smaller, local producers 
        are usually gentler on our lands, are stewards rather than the 
        exploiters that massive agro-business is.
          (243) It is more important now more than ever that small town 
        farm spaces be allocated the necessary means to keep producing 
        food for the future.
          (244) It is the small and medium sized farms that are the 
        lifeblood of rural communities. Support a farm bill that 
        supports them. It's good for family farmers. It's good for 
        rural communities
          (245) It is the small farmer who needs the help, not the big 
        corporate ones. They make enough profit and have plenty of 
        perks. Small farmers are better stewards of the land , use 
        fewer pesticides, and don't practice monoculture.
          (246) It is the wrong time to reduce supports for food aid to 
        poor and permanently unemployed, elderly and handicapped. If 
        anything, these programs need to be augmented as the ranks of 
        needy grow.
          (247) It is time to get rid of the commodity support payments 
        which are distorting agricultural practice. U.S. funds are 
        better used in programs targeted to maintain a farming 
        population and conserve critical resources such as soil and 
        water.
          (248) It should require labeling of GMO foods, discourage the 
        planting and use of GMO foods and encourage and support organic 
        agriculture.
          (249) It's all about driving the small family farmer out of 
        business and having big farms control food production. This 
        land is being set up so only the wealthy will have anything. 
        They only want the rich and the poor. No room for a middle 
        class anymore. A handful of people will own this country, just 
        like those countries in Central America.
          (250) It's crucial to invest in rural America. It's my future 
        and yours. The time is now.
          (251) It's important to cut the subsidies to large farms and 
        ignore programs helping the poor and small framers. Your 
        conscious should be your guide.
          (252) It's important to help new farmers get started as they 
        are the future. Helping the wealthy and powerful is just plain 
        stupid as their doing fine on their own. Giving start up 
        farmers a hand up is important so they can plant and grow our 
        food of the future.
          (253) It's time for our legislators to stop doing the ``you 
        pat my back and I'll pat yours'' program and start looking out 
        for your average constituents instead of the very wealthy just 
        to get campaign funding.
          (254) It's time to get your hands off agriculture and allow 
        people to produce all the food that they can, keep what they 
        earn and live their lives as free people with God given rights 
        and a constitution of free people. Stop the Corporate handouts 
        and the outright theft of money from hard working American 
        Citizens! Do your job for a change and stop lining your 
        pockets--live Morally
          (255) It's time to protect and support small to mid-sized 
        farmers in our state!
          (256) It's time to start aligning agricultural policy to 
        support growth of healthy foods (i.e., fresh fruits and 
        vegetables) rather than commodity surpluses. Don't cut SNAP, 
        TEFAP, CFSP funding! Stop trying to balance the budget on the 
        backs of the most vulnerable members of our population!
          (257) It's time to turn things around and put Small farms 
        first and do want to keep them going.
          (258) I've moved to Lawrenceburg, IN 47025 Please change my 
        mailing ZIP Code.
          (259) I've wanted to start in agriculture for years but 
        haven't been able to for the same reasons as Justin Doerr. I'd 
        love to have the chance to follow my dream and work Gods 
        beautiful land and supply America with much needed resources.
          (260) Just do us right!
          (261) Keep beginning farmer programs funded. Without new 
        farmers there is no need for farm bills down the road.
          (262) Keep farm business growing. This is past, present and 
        future need for our country. God bless you in the act of 
        approval the Bill for growing this business to feed the hungry.
          (263) Keep funding for EQIP and NRCS fencing and High Tunnel 
        programs . . . absolutely essential to starting up a vegetable 
        operation!
          (264) Land is expensive and my family lacks the capital to 
        fulfill our fervent wish--to farm. I hate to say it, but 
        anything the government can do to make it easier to farm, start 
        farming and stay farming, including ``gotcha'' regulation 
        enforcement would help.
          (265) Large agribusiness and large farmers are a threat to 
        economic efficiency, the environment and rural communities. You 
        know what the right thing to do, so do it.
          (266) Large corporate farmers should not receive Federal 
        support. Only small family farms should.
          (267) Large farming operations and agricultural corporations 
        are concerned only with quantity and profit. This is what 
        commodities are all about--produce more so we can feed the 
        world (and boost out profits). Do you know that corn 
        commodities don't feed people? The majority of corn produced 
        feeds cattle (confinement lots, not grass fed) and cars 
        (ethanol, not really the best fuel)--and all for quantity and 
        profit. The largest public outlets for commodity products are 
        the Wal-Marts and Menards (goal: large quantities, lower cost--
        a bribe). The result of all of this? People in our own backyard 
        are hungry, unhealthy, and have access only to highly processed 
        foods increasing obesity, diabetes, cancer, etc. (increasing 
        health costs). And, small farms and small town local grocery 
        stores are disappearing, eliminating locally grown foods and 
        locally owned businesses. Please do not make any decisions that 
        will allow large corporations more profit and more power--they 
        already own too much of people's lives. Please support a farm 
        bill that emphasizes quality of food, quality of local 
        businesses, and quality of life for all local people.
          (268) Let's bring farming back to a an honest profit and loss 
        business. Invest in rural development instead of giving 
        subsidies to the wealthy few.
          (269) Let's do what we can to support smaller farmers and cut 
        back on the financial support to big agribusiness.--Donald 
        Marsden.
          (270) Let's pass legislation that ends Corporatocracy and 
        brings back Democracy.
          (271) Let's put equity at the front of this farm bill! I 
        support small farms, organic agriculture, conservation 
        programs, and support for beginning and socially disadvantaged 
        farmers and ranchers.
          (272) Let's stop capitalism and for once support the 
        peasants, the working class who want healthy organic food for 
        less. Provide help to the small farmer who just want to 
        survive.
          (273) Let's support Alabama and the nation's farmers.
          (274) Let's support the family farms our nation was built on, 
        not the corporate farms that would destroy our heritage in the 
        name of profits.
          (275) Let's try to have a sane and fair farm bill.
          (276) Let's work hard to develop rural communities in a 
        sustainable way with diversified economic bases.
          (277) Liberty must be accompanied by justice.
          (278) Limit pesticides and herbicides. Promote organic 
        agriculture.
          (279) Limit the subsidies . . . small farmers are needed in 
        our country. They have been the backbone of our nation . . . 
        don't let the big farmers destroy them. Enough has already been 
        done.
          (280) Limiting payments for the largest subsidized farms will 
        save taxpayer money in the long run without really doing much 
        harm to the largest corporate producers. Please support 
        individual, smaller farmers and stop giving welfare handouts to 
        large commodity farmers.
          (281) Limits should be tightened to give small and beginning 
        producers a better chance for success.--Warren.
          (282) Link the farm bill to existing conservation and 
        environmental protections, such as the Endangered Species Act. 
        The farm bill is an important tool for protecting habitat while 
        concurrently preserving nutrient-rich topsoil.
          (283) Local far/ranch economies need your support to prosper 
        and strengthen their communities.
          (284) Local farmers markets and local small farmers are 
        needed and need help more than the large corporate farms that 
        drive out the little guys.
          (285) Local food from local growers is the healthy way to do 
        business. Please keep big business out of the food supply. 
        Please invest in our children's future while helping to set the 
        food chain right again. Legislate for your constituents, not 
        agri-uber business.
          (286) Local food production is one of the keys to saving our 
        planet. We need many more farmers. We need more producers and 
        less consumers if we want to hold onto any hope of saving our 
        planet! Please help save our planet and economy!
          (287) Lower the ratio between farm agents and farmers
          (288) Major factory farms do most of the worst health abuses, 
        make the worst pollution, and do the least to take care of the 
        long-term fertility of the land. Invest in young farm families 
        to preserve rural America!
          (289) Make conservation a requirement for crop ins.
          (290) Make sure the farm bill supports small and medium-sized 
        family farmers by capping farm subsidies. Unlimited subsidies 
        are the single most wasteful and counterproductive feature of 
        current farm policy. Both farm subsidies and crop insurance 
        premium subsidies should be subject to caps, so that payments 
        are targeted to the small and mid-sized farmers who need them 
        most. Reinvest in rural America by supporting farmers, not 
        corporations pretending to be farmers.
          (291) Make the 2012 farm bill part of your legacy--advocate 
        for small to midsize farmers and help our tax dollars make 
        their way back into the pockets of people in rural America. 
        Stop wasteful government giveaways to only the biggest, meanest 
        Ag companies who are the most likely to ruin America's soil and 
        water for future generations (if they are deregulated and given 
        millions in subsidies). We the people are speaking out--are you 
        listening?
          (292) Make the Farm bill for farmers and ranchers, directly 
        involved in agriculture, do not include the welfare programs 
        with it.
          (293) Mega-farms are killing the land they use because of 
        heavy chemicals and the lack of crop rotation. This will soon 
        cause a crisis in food supply. Mega-farms do not need 
        subsidies. Small Farms Do Need Subsidies! Small farmers (family 
        and organic farms) are the backbone of our food supply which is 
        being threatened. These are the farms that need assistance if 
        we hope to survive as a species.
          (294) Middle class farms will be eliminated in time
          (295) Money for farming is to be given to those who are 
        struggling, not the big farmers.
          (296) More beginning farmers are interested in working in an 
        ecologically and organically sound way. This will also help the 
        rest of us!
          (297) Move to subsidizing sustainable farming ( organic) not 
        huge big ag and genetically modified.
          (298) My Dad (well, our whole family) farmed 160 acres in 
        York County Nebraska in the 1940's, 1950's, and 1960's when I 
        was a youngster. We had milk cows and beef cattle, pigs and 
        chickens. We baled our alfalfa hay. We irrigated from the Big 
        Blue River. My Dad was conservation-minded: He was careful with 
        the amount of water we put on our corn and milo. He plowed and 
        planted grassed waterways and contours on the hillsides. Our 
        wonderful life would not be sustainable today. Why should 
        entire families be preempted by huge farmers? Why would my 
        country subsidize big operations at the expense of small 
        families?
          (299) My family also farms, and we agree that the payment 
        limit has to be capped on farm subsidy payments. The large 
        farmers receiving these subsidies (which are absolutely not 
        needed, with crop insurance, and strong commodity prices to 
        back it up), are only driving out smaller family farms and 
        getting wealthy in the process. In our area of SW Minnesota, 
        they are driving up land rents and prices to astronomical 
        levels, simply to gain control of more and more land, because 
        they are ``using the system'' for huge financial gains.
          (300) My heritage is a family farm, on which minimum-till and 
        other conservation practices were used. Please vote to protect 
        these invaluable resources. Thank you.
          (301) My name is James Bailey. I would urge you to vote the 
        course that provides for the majority of people.
          (302) My parents own a farm in Nebraska and I can not afford 
        to take it over for financial reasons. I joined the Army and 
        now live out of the state. I would love to be able to farm 
        again.
          (303) My siblings and I were all raised on small family 
        farms. Now when we drive through the rural areas, we see 
        nothing but these huge farms and enormous farm equipment. It is 
        past time for something to be done to curtail the subsidy that 
        the large farms are receiving.
          (304) My statement to my legislators (Arkansas), Our farmers, 
        and especially small and veterans deserve our support, 
        including a way to transition back to their communities with 
        jobs and a stable environment. I support the new farm bill as a 
        economic development tool/resource to help rural America offer 
        much needed economic development opportunities for these groups 
        and others. Thank you.
          (305) Nationalize corrupt and fascist agribusiness and 
        support family and organic farming. Nationalize and jail 
        Monsanto, Dow, ADM, Cargill and the rest under the RICO laws.
          (306) New and Beginning Farmers are our future and thus, they 
        are the ones whom we should be helping. Investments in Rural 
        America have always shown upward effect on local resources. 
        Conservation programs are a proven commodity and should be 
        maintained at least at the present levels.
          (307) No More Funding for Big Farms and NOTHING for 
        Agribusiness . . . they have created a health crisis with their 
        poisonous ways . . . we are all watching very closely all 
        involved with this matter. . .and sharing widely . . . I urge 
        you to do the right thing and abide by what the people of this 
        country want . . . this is OUR country after all . . .

          (308) No Payouts To Mega-Farms! Instead, Subsidize Small, 
        Family Farms And Promote The Future Of Healthy, Sustainable 
        Food That Is Good For Our People And Good For Our Country! 
        Thank You.

          (309) No subsidies to anyone who doesn't actually work a 
        farm.
          (310) Not to limit payments to the largest, wealthiest 
        farmers and not to support middle-sized and small farmers is 
        not only unjust, but short-sighted.
          (311) Number 1 payment limits are the key necessity on dairy 
        extend MILC and stop support prices for large dairies
          (312) Once again Congress is proposing to subsidize the 
        largest farmers with a majority of support payments while 
        beginning and mid-sized farms need the help most to stay in 
        business, let alone begin farming . . . and USDA just keeps 
        predicting that America's mid-sized farms will simply continue 
        to disappear! The farm bill has departed far from its original 
        purpose: to help all American Farms as needed. It suffers from 
        the influence of Big Business as had most other legislative 
        provisions in this do-nothing-significant Congress.
          (313) One of the largest farms is taking away my own rights 
        and many of these farms are also taking away the rights of many 
        people. It's time to move toward good land stewardship and to 
        support a new crop of farmers and ranchers.
          (314) One of the most important elements of the beginning 
        farmer and rancher programs are new provisions to set aside 
        money specifically for military veterans who want to get into 
        farming. I know you can appreciate this, since we owe it to 
        returning vets to help them in any way we can in finding 
        meaningful employment. I have talked to many veterans who have, 
        or would like to get agricultural training and/or start new 
        farms. Because farming has many similarities to the military 
        experience, farms are often a place where wounded veterans and 
        those having difficulty with readjustment can find meaningful 
        work that suits their particular needs. I hope you will support 
        beginning farmer programs in general, and specifically promote 
        programs that support our military veterans in entering farming 
        careers.
          (315) Organic farming is a proven method for conserving our 
        natural resources. Small organic farms need support and 
        protection to keep the conservation of natural resources moving 
        in the right direction.
          (316) Our best farmland is fast disappearing. Please consider 
        its importance in the 2012 Farm Bill. It's the source of the 
        daily food of our families.
          (317) Our Congressional District is the most rural in the 
        country. The farm bill most support sustainable rural 
        development if we are going to have healthy rural communities.
          (318) Our country needs small farmers.
          (319) Our family owned farms should get more help than they 
        are receiving.
          (320) Our government, which is not ``our'' government any 
        longer because we small farmers as well as the majority of the 
        U.S. population, are not represented once the larger lobbyist 
        get through to you once you are in congress. PLEASE help 
        protect the small farm and our natural resources in our 
        country. Remember small business is the key to keeping our 
        country from full out recession, even though small farmers are 
        going out of business every year because they can't compete 
        against mega farms that get most of funds. Our government is 
        upside down on its priorities. Please help us put confidence 
        back in government. Thank you for considering this post.
          (321) Our great nation was built by farmers and we must do 
        everything that we can to support them.
          (322) Our greatest concern is for the small food producers in 
        our area. They are an invaluable resource for our health and 
        nutrition as well as exceptionally good stewards of the soil, 
        water and air. Please make sure they have the same support and 
        encouragement as large-scale farmers.
          (323) Our small family farmers are the foundation blocks of 
        our social, economic and moral society. Helping our small 
        farmers helps our society.
          (324) Our small farmers are vital to the U.S. food security. 
        They need and deserve funding to grow their farms to provide 
        for the consumer.
          (325) Our society must support new small-scale and existing 
        small-scale farmers. One way would be to provide low-interest 
        loans to them. Another would be to remove the ``specialty 
        crop'' status from fruits, vegetables, and nuts, which are 
        essential to human health. These crops ought to have the same 
        status as commodity crops and ought to be supported through 
        similar funding mechanisms and policy guidelines. Fruit, 
        vegetable, and nut farmers are heroes. With the growing trend 
        of obesity, especially among children, in this country, people 
        need greater access to fruits, vegetables, and nuts, and our 
        farm policies ought to support farmers who want to grow them. I 
        also agree with the platform detailed above by the Center for 
        Rural Affairs. A reduction in massive support to large-scale 
        and corporate farming operations with a concomitant increase in 
        support for small-scale farmers is needed. Farmers not only 
        grow our food but also provide valuable ecosystem services 
        through their conservation of open spaces and resource 
        management practices. A primary reason that America is so 
        beautiful is the effort of our farmers to hold on to their 
        acreages!
          (326) Our taxes should not be used to subsidize some of the 
        world's biggest corporations! Farm payments need to be a safety 
        net,not a way of life!
          (327) Pay attention.
          (328) Pay attention, or you'll be voted out.
          (329) Payment limitations are a must, and should be lowered, 
        not eliminated. Please act on behalf of rural America, not the 
        wealthy few who are draining it for their profit.
          (330) Payments to large farm enterprises/corporations are 
        ``out of line'' and contribute to the destruction of family 
        owned and small farms where true diversity and sustainability 
        are nurtured. Large monoculture systems are foreign and 
        unsustainable while hurting our ability as a country to be well 
        prepared to meet environmentally sound food systems that will 
        ensure production ``at home''. We are at risk as a country. Our 
        ``wrong-farming'' creates dead soil, dead bees, dead industry, 
        and a dead future for the nutritional needs of Americans. 
        Please stop paying large farm operations and put more money 
        into supporting diverse small family farms!
          (331) Personally I think that payments for commodity crops 
        like corn, cotton, soybeans, wheat and rice should be 
        eliminated. Funding for this should be transferred to 
        conservation and beginning farmer and rancher programs. We need 
        more environmental stewards among our farmers. The two go 
        together and we should encourage it. All we encourage now is 
        monoculture farming that benefits corporations.
          (332) Please consider the needs of your average constituents, 
        not just big agribusiness!
          (333) Please act to further these aims.
          (334) Please continue to give assistance to small famers and 
        beginning ranchers
          (335) Please do not continue to subsidize the ``Huge 
        farmers.'' It is important to limit farm payments! It is the 
        small and middle-sized farmers who need this help--not the 
        mega-farmers. Limit Farm Payments!
          (336) Please do not cut funding and eligibility for food 
        stamps! This is essential to the ability of millions of 
        American children and adults to learn in school and be healthy 
        enough to work.
          (337) Please do not force more small farmers out of business 
        and off their land! We need more farmers not less to feed us!
          (338) Please do whatever you can to support small and 
        beginning farmers to ensure a healthy and viable food future 
        for all Americans.
          (339) Please do what's right, if we cut out the heart of the 
        country it will be hard to keep on beating.
          (340) Please end taxpayer supported monopoly agribusiness. We 
        need successful family farms not industrial agriculture; 
        vibrant rural communities not ghost towns; a local food system 
        not a globalized energy intensive food system.
          (341) Please examine your priorities. Vote for food every 
        time. You can't go wrong.
          (342) Please give these vets a chance to succeed!
          (343) Please help me so I can save my family's farm that's 
        been in our family since the turn of the Century.
          (344) Please help our small farmers NOW. Thank you.
          (345) Please help out the small farmers. The big farmers do 
        not need to get any bigger. Why do they get the subsidies?
          (346) Please help save our way of life and this county in the 
        process!
          (347) Please help the young farmer and Disabled Veterans have 
        a chance at a dream that helped shape America as the 
        Breadbasket of the world.
          (348) Please help those of us making a Grass Roots effort in 
        Agriculture.
          (349) Please it's time to pursue alternatives to take really 
        care of our future and resilience capacity! Please support the 
        next young farmer's generation and a diversified agricultural 
        future
          (350) Please limit farm payments, because unlimited payments 
        create an unfair system that undermines individual farmers and 
        small business owners. Unlimited payments benefit large farms 
        and corporations that never were intended to be the 
        beneficiaries of payments. Please help keep the field 
        competitive by limiting farm payments. We need to help rural 
        America grow more by helping the small business owners and 
        farmers. Thank you.
          (351) Please limit farm payments, because unlimited payments 
        create an unfair system that undermines individual farmers and 
        small business owners. Unlimited payments benefit large farms 
        and corporations that never were intended to be the 
        beneficiaries of payments. Please help keep the field 
        competitive by limiting farm payments. We need to help rural 
        America grow more by helping the small business owners and 
        farmers. Thank you.
          (352) Please limit payments to the big ones--it is absurd 
        that we should be ``subsidizing'' any farm owner who takes in 
        more than $250,000. If they are to have help with crop 
        insurance, of course, they should be subject to a compliance 
        program; we should not be helping farmers who cannot put in the 
        effort to carry out basic soil conservation measures. Saving 
        the soil as well as the small farmer should be the goal of the 
        farm bill.
          (353) Please limit the amount of money paid to large farms to 
        keep money for the small & medium sized operations that are 
        trying to make a living in a lifestyle that supports rural 
        communities by keeping them alive and vibrant. Thank you for 
        your consideration.
          (354) Please make rural development a priority. The tradition 
        of farming does not include greed, yet the current farm bill 
        encourages greed and leaves out the common sense farmer
          (355) Please make the farm bill fair, where all the resources 
        are distributed evenly between all farmers and really focus on 
        the loopholes where billions are funneled.
          (356) Please move the money from large corporate farms that 
        damage the Earth and produce poor quality food to small farms 
        that have a lighter carbon footprint and produce better, safer 
        food.
          (357) Please pass the farm bill so, young Americans can begin 
        farming, and start the thousands of memories, the strong work 
        ethic, and build the determination that is developed through 
        farming. Farmers feed the world, and without them no one can 
        survive. So, help them help you!
          (358) Please pay attention to the needs of our small farmers! 
        We need more farmers in rural America, not fewer.
          (359) Please pay attention to this. We are small farmers
          (360) Please ponder Bill McKibben's book, Deep Economy. You 
        will no longer support the `suicide pact' that the $$$boys have 
        designed to put money in their pockets at our expense.
          (361) Please preserve and expand programs supporting new, 
        small and medium farmers. Subsidized mass scale commercial 
        scale agriculture must end; it encourages and supports 
        unsustainable ag practices and creates unfair business practice 
        that thwarts better methods and approaches that preserve the 
        soil and produce more nutritious products. Instituting this 
        would have enormous positive effects on citizen health, costs 
        and environment. The very subjects that are in the headlines 
        and for which no real radical solution is being proposed--and 
        actually the solution is not that radical, it is mere common 
        sense, more intelligent design and operating with integrity. 
        Please stop treating raw milk and other more wholesome farm-to-
        consumer products as if they are illegal contraband or banned 
        substances--and promulgate regs that allow them. Purchasers of 
        such products are generally more responsible people anyhow 
        based upon their ideals. Support industrial hemp once and for 
        all and recognize that in other large producer countries, the 
        population hasn't turned into a bunch of potheads. Industrial 
        hemp is not the same plant and I am tired of these old 
        fallacious arguments against it--it would revolutionize U.S. 
        agriculture. Latest statistics indicate U.S. teenage kids are 
        using the other cannabis at alarming rates--however, this has 
        nothing to do with industrial hemp growth and DEA can confer 
        with other producer countries to determine how they control 
        illegal growth in legal fields. Farm succession planning must 
        be supported. There are a large number of young Americans that 
        would like to farm--please make it economically feasible for 
        them to do so. How can any legislator/law maker in good 
        conscience create laws and bills that violate the rights of 
        those that want vibrant living soils, no GMOs, nutritious food, 
        fewer chemicals and localized food production? Where is the 
        downside? There are plenty of studies to support the 
        feasibility of all these approaches to adequately provide for 
        the populous. Thank you for your consideration.
          (362) Please protect the little guy for a change . . . We are 
        not stupid we no a fix when we see one. Stop hurting the little 
        guy . . .
          (363) Please provide support where it is needed and will 
        benefit our rural health . . . to true family farmers 
        practicing stewardship, not mega-farms.
          (364) Please put caps on farm subsidies to large farming 
        operations--it is not needed, and is taking funding away from 
        support for family farming operations, beginning farmers, and 
        rural small business support. Support the USDA RMAP program, 
        which provides loans and technical assistance to businesses in 
        small towns and rural America!
          (365) Please retain all conservation requirements included in 
        the present farm bill. With greatly increased use of what was 
        traditionally pasture for raising corn, habitat for many 
        prairie bird species is disappearing at an alarming rate.
          (366) Please reverse the trend that has been occurring in 
        agriculture business and stop legislation and subsidies that 
        support big ag and start supporting beginning farmers and 
        ranchers. NOW.
          (367) Please show your support of America and its' 
        entrepreneurs . . . Not Corporate farmers and ranchers, and 
        pass a farm bill that includes Limited Farm payments to 
        corporate farms and Protective Conservation Programs. Thank 
        You!
          (368) Please stop large payments to large farmers. I would 
        suggest that payments should be limited and tied to the size of 
        the farm. One farmer, farming a whole county does the state, or 
        nation any good. It would be much better to have multiple 
        families living on the land. The minimum should at least be 
        that the farmer has to live AND work the farm.
          (369) Please stop subsidizing genetically modified corn and 
        soy--it's making our country fat, sick, and subjecting our 
        children and our environment to the biggest genetic experiment 
        in history. The future of farming is small, and organic! 
        Chemical fertilizers will be obsolete when natural gas runs 
        out, which may be less than 20 years from now. It's likely that 
        petroleum production has peaked, which will impact food 
        production and distribution. We need small farmers and 
        diversified crops to ensure our food security for the future. 
        Finally, stand up for the health of our soil. Soil depletion 
        has predated every collapse of an organized society. Protect 
        conservation, limit or eliminate farming practices that strip 
        the soil (and thus the food) of nutrients. Magnesium deficiency 
        in foods due to soil depletion is documented, and leads to 
        increased risk of Alzheimer's and Diabetes, among other health 
        concerns. Stand up for the health of future generations and 
        support a better farm bill.
          (370) Please support a 2012 Farm Bill that invests in the 
        healthy revival of the small and beginning family farms we are 
        nurturing here in the mountains of WNC and southern Appalachia.
          (371) Please support conservation programs, beginning 
        farmers, local food initiatives, and small and moderate-sized 
        farms by tightening payment limits on subsidies.
          (372) Please support conservation programs, beginning 
        farmers, local food initiatives, and small and moderate-sized 
        farms by tightening payment limits on subsidies.
          (373) Please support efforts to sustain and encourage family 
        farming. Without small farming families, our rural communities 
        will continue to lose critical mass that allows us to support 
        vibrant small towns.
          (374) Please support organic farmers, too!
          (375) Please support organic farming research and education 
        programs.
          (376) Please support our local farmers.
          (377) Please support our young farmers & ranchers & small 
        farmers
          (378) Please support rural American families and farmers 
        instead of giant corporate agriculture!
          (379) Please support small and midsize farmers and the rural 
        communities they live in by, capping the subsidizes to the mega 
        farms, supporting the Beginning Farmer and rancher programs and 
        rural microentrepeneur Assistance Program. This will keep small 
        towns viable and conserve our nation's natural resources for 
        generations not yet born. Thank you!
          (380) Please support small beginning farmers. As fuel costs 
        increase along with transportation costs it will be more 
        critical to develop more local supplies of farm products both 
        produce and livestock including aquaculture products. It is 
        crucial that small producers be supported for the food security 
        of our country.
          (381) Please support small farmers and educational programs 
        already in existence that encourage and develop our rural and 
        urban farming communities!
          (382) Please support small rural farms!
          (383) Please support sustainable, soil building farming that 
        produces high quality, nutrient dense food to create healthy 
        people; it is in all of our best interest. Wes Adams, Adams 
        Blackland Prairie.
          (384) Please support the farm bill, it helps the people that 
        keep us alive!
          (385) Please support the small and family farms, not the big 
        corporations
          (386) Please support the small businesses and farms who are 
        the backbone of our culture and economy.
          (387) Please support the small farmer!
          (388) Please support those farmers who practice sustainable 
        farming and humane treatment of animals.
          (389) Please take a stand on behalf of small farmers, for 
        cultivating young farmers, for localized and organic food 
        systems and for labeling any and all GMOs. Thank you.
          (390) Please take care of our independent farmers. The big 
        agribusiness is only looking out for themselves!
          (391) Please take the time to pursue rural development and do 
        all of the above. It's time for American farms to save and 
        preserve the land and give young farmers an opportunity to 
        pursue their passion.
          (392) Please think of the small farmers. This is very 
        important to our country and our heritage.
          (393) Please, please, please support farmers with dirt under 
        their fingernails.
          (394) Please, please, protect the family farm. Having lived 
        on a small farm in my childhood and young adulthood, I know how 
        the family loves and cares for the land. Land is so precious.
          (395) Please, small farms made America. Industrial farms are 
        killing their way of life and are polluting our Earth and 
        contaminating the nation's population.
          (396) Protect our farmers' livelihoods, eliminate and 
        prohibit the use of all GMO's
          (397) Protect small and new farmers for the security of our 
        country.
          (398) Protect SMALL farms. Stop subsidizing BIG farms.
          (399) Put limits on crop insurance. Make sure the soil is 
        protected. Keep rural America in the mainstream of economic 
        development. Protect family farms from corporate farms and 
        livestock cartels. Those are the elements of a good farm bill.
          (400) Put Obama in the Penitentiary. Put the Nebraska state 
        of education there also. They lied to me as a child. To lie to 
        a child is to be a pedophile. They thus stole my ranch and my 
        farm, forcing me into homelessness, murdering my progeny.
          (401) Quit subsidizing the nation's largest farms, many times 
        not to grown food, but get paid huge sums of money. While 
        smaller farms work hard to try raise crops to feed Americans & 
        barely make a living! A very concerned citizen, who's aware of 
        what's going on, & needs stopped by the government & every 
        state.
          (402) Recent obesity discussion on WPR that we subsidize corn 
        and beans and pay for obesity illnesses from too much corn 
        syrup and other unhealthy food. food industry is like tobacco 
        industry. cut them off, please.
          (403) Regional food security is too important a factor to be 
        left to special interest groups and multi-national 
        corporations. Please, invest in small farmers. Only 2% of the 
        population in the United States identify as farmers today. This 
        is not enough. Luckily, there is a resurgence of interest in 
        farming! When I completed The Evergreen State College's 
        Practice of Sustainable Agriculture program in 2007, there were 
        about 25 people in my class. This year, there are 50. I plan to 
        begin the journey of farming next spring, at age 30, and I'm 
        not alone in my dream of wanting to enrich community, enhance 
        regional food security, and contribute to my local economy 
        through my farm business. I can't tell you how hard my journey 
        has been though. Several my grandparents belong to the faction 
        of farmers who basically couldn't `make' it anymore because of 
        the way the food system is set up. I've put myself through 
        agriculture school, volunteered numerous hours, and read a lot 
        in order to get to the point where I feel knowledgeable enough 
        to begin farming. I have no idea how I will acquire land, which 
        is why I haven't started farming sooner. I think I will have to 
        rent land for a long time before I can buy some. This situation 
        is common for today's beginning farmers, and one I consider a 
        tragedy. How can we invest in orchards, make long term 
        investments in soil health, and be good stewards of our land 
        without any confidence we'll be there for more than a couple of 
        years? The farmers telling you that the subsidy system and the 
        farm bill that we have right now is great are the farmers who 
        aren't really farmers--corporations posing these days as 
        `people,' or people who don't know what real farming is 
        anymore. Please, put your belief and money in the direction of 
        an improved food system. One which is good for farmers, good 
        for consumers, and good for the environment. (Many studies that 
        I've read indicate that small farm farmers are more likely to 
        be better stewards of our shared resources than large corporate 
        farm structures.) If my testimonial sounds a little crazy, then 
        I encourage you or your assistants to read some of the current 
        literature on food politics and farm policy--of which there is 
        a lot. The encyclopedia articles, numerous peer-reviewed 
        articles, websites, and thoughtfully written books I've read 
        have deepened my understanding and formed my biases on this 
        matter. I honestly believe that if you side with the big 
        interest groups that stand to gain the most from the current 
        farm bill, you are either uninformed or on their side. 
        Sincerely,--Kandice Caldwell, Gresham, OR
          (404) Reinforce and properly fund the Resource Conservation 
        and Development Councils as authorized in the farm bill. They 
        know how to get leveraged dollars maximized in America!
          (405) Remember it was the little farmers that built this 
        country--not corporate farmers!
          (406) Remember--it's the Farmer who feeds us all! Protect 
        farming land, and honor farmers!
          (407) Remember small and mid sized farms; they are good for 
        all of us.
          (408) Remember the little guy . . . limit the mega-farms.
          (409) Remember, fewer small and medium size farms/ranches are 
        going to have to up production, on less land, to keep the 
        growing population fed!
          (410) Remember, fewer small and medium size farms/ranches are 
        going to have to up production, on less land, to keep the 
        growing population feed!
          (411) Remove the barriers. Allow and encourage people to 
        steward the land and bring back agriculture and land management 
        to the people, not just corporations.

          (412) Remember The Many Contributions Of The Single Farmer 
        Since The Beginnings Of This Nation! Thanks.

          (413) RESEARCH The farm bill needs to expand research into 
        sheep production and especially grass-fed genetics. A massive 
        export market exists. In the North East there are many small 
        farms, esp startups where sheep could be raised for export. And 
        we cannot forget about the 9 billion mouths that will be 
        looking for protein in forms other then soy in the next 25 
        years. In Ag it takes about 25 years for new technologies to 
        become wide spread.
          (414) Re-vitalizing local food systems by helping new farmers 
        put idle land around cities back into food production will 
        provide jobs, food security and a higher quality of life. 
        Capping payments to wealthy farmers and using those savings to 
        fund assistance programs to new small farms and beginning 
        farmers makes sense. Do it!
          (415) RMAP Funds are vital to continue the work the Rural 
        Enterprise Assistant Project (REAP) in Rural Nebraska. The 
        ability to use this fund to purchase Commercial Real Estate 
        Buildings and the flexibility to do the loan for a 10 year term 
        will help many microbusinesses.
          (416) Rural America Needs Help. There are no big 
        philanthropists to help us like there are in urban America. 
        Most Federal agencies make it too difficult for rural 
        communities to compete for grants.
          (417) Rural America needs programs to assist beginning 
        Farmers to maintain a strong Agricultural structure in Nebraska 
        and surrounding states.
          (418) Rural communities need small farms to survive. Towns 
        cannot thrive when surrounded by large corporate producers. 
        Please encourage the growth of rural entrepreneurs and the 
        growth they bring to rural areas by focusing on the needs of 
        smaller producers and not the largest farms. Thank you,--Mary 
        Katos, Sidney, Nebraska
          (419) save our farmland and quality of life, stop all 
        immigration now!
          (420) Save small and family farms!
          (421) Save the community. Small farms keep America alive.
          (422) Send my tax dollars to small farmers, I don't eat food 
        from Big Ag so they shouldn't be getting my tax dollars.
          (423) Seriously, you want to kill small farms?
          (424) Seriously. We need some incentives to bring people back 
        to farming.
          (425) Show some courage. Vote for healthy people, 
        communities, and rural environments. Stop subsidizing polluting 
        farmers. Cap farm payments.
          (426) Small American Farms are Important to a healthy 
        economy, please vote to protect and invest in our small farms.
          (427) Small and medium farms are the future of rural America!
          (428) Small and midsized farmers are essential--the expertise 
        and understanding of the land outside corporate hands is 
        essential for competition and health of U.S. citizens
          (429) Small and middle size farms need to be protected. 
        Keeping good stewards on the land should be a priority over 
        mega farms whose interests are only profits.
          (430) Small and mid-sized farms are our last hope for 
        generating healthy food sources and developing local economic 
        development in our country. I ask you, as a legislator, to 
        consider your constituents' voice. Big Ag doesn't speak for the 
        heart of America.
          (431) Small business growth has been the backbone of economic 
        development in the rural communities. Please do not eliminate 
        these valuable programs such as Rural Microentrepreneur 
        Assistance Program (RMAP); Rural Energy Assistance Program 
        (REAP); Rural Business Enterprise Grants (RBEG); conservation 
        programs and other vital programs to our rural communities. 
        Please do not cut/eliminate these programs from the 2012 Farm 
        Bill
          (432) Small family farms are discriminated against under the 
        currently proposed farm bill. A beginning farmer hardly can 
        raise the capital to start farming and it's getting worse. 
        Large subsidies to big farmers ony enable them to crowd out the 
        smaller farmer by paying astronomical land prices, far beyond 
        what the land can produce as income.
          (433) Small farmers--NOT the large agribusiness farmers, but 
        the small farmers--are the heart and soul of America's 
        agriculture. Small farmers must be encouraged AND supported 
        financially, even at the expense of corporate agribusiness 
        interests!
          (434) Small farmers are part of the 99%
          (435) Small farmers contribute in a meaningful way to the 
        local community. There are too many obstacles in the way and if 
        you want to ``grow'' the economy in rural communities this is 
        one way to do it.
          (436) Small farmers deserve a level playing field. Through 
        some dough @ them. Fed up with big agribusiness.
          (437) Small farmers have a hard time making ends meet. Big 
        producers are making lots of money--they don't need more 
        support.
          (438) Small farmers have a lobby too . . . and we are it !
          (439) Small farmers have and will continue to feed the 
        world--and save our land as well.
          (440) Small farmers pay more taxes and should be supported by 
        government programs to help the small farmers.
          (441) Small farms are part of our heritage and should be 
        protected and supported. They are an important part of this 
        country in which we all have a vested interest. Our laws were 
        written against the whole concept of monopolies and 
        corporations that destroy smaller businesses. It is the 
        governments sworn duty to uphold not only the letter of the law 
        but also the spirit. Corporate farms that destroy small farms 
        should not be supported by government subsidies. It goes 
        against the letter and spirit of the law It is the duty of 
        legislatures to represent people in particular farmers and the 
        people who depend on their produce not corporations!
          (442) Small farms are the fabric on which our country was 
        built. I'm a product of what a small farm provides. Our family 
        learned what work meant and the lessons learned led to 
        furthering our education and becoming very productive members 
        of our community and points beyond. We became teachers, 
        doctors, engineers, and hard working members of our 
        communities. I firmly believe in helping out our small farmers 
        so they can provide a sound structure for their families, 
        communities and country. Thanks for your support.
          (443) Small farms have my best interest at heart. Corporate 
        farms are out to make the most money they can without regard to 
        the public.
          (444) Small farms provide more local organic produce at less 
        cost to the environment. They also provide employment for 
        thousands of people of all ages. Don't let big commercial farms 
        shut down small family farms.
          (445) Small farms should be more protected as they can adapt 
        to agricultural change faster and easier. Stop just supporting 
        big money
          (446) Small Farms will thrive if they get a fair chance. 
        Changing the subsidize so that the small local farms can 
        survive and grow is just, right and serves the American People 
        rather than Industry and Corporations.
          (447) Small local farms is the preference for purchasing food 
        in the Northwest, we fully support Locavore living here.
          (448) Small responsible farming should be encouraged
          (449) Small start up farms need to be able to write of 
        expenses during the start up process, even before they are 
        operational.
          (450) Small to mid-sized farmers have a disadvantage of 
        buying more land, etc. because huge farms get a lot more 
        subsidies to get even bigger! How are we going to get our young 
        farmers started farming when the capital expenses (land prices) 
        are driven up so much?
          (451) Small, family agriculture was what made this country 
        great, and it continues to be the healthy backbone of our 
        nation.
          (452) So much of U.S. job growth is said to be from small 
        business, so limiting funds to small farmers does not make 
        sense. Are they not considered a small business?
          (453) Something needs to be done, now. Not later to save the 
        small farms. There will be no family farms and or beginner 
        farms if action isn't taken to save what this country was based 
        around. There is no reason why we can't supply our own food, 
        and stop importing meat/dairy to fill the needs of the country. 
        Allowing the large ``factory dairies'' is ruining the small 
        family farms. Sort of like what Wal-Mart has done to the Ma and 
        Pa shops. Made them extinct. Congress needs to Stop filling 
        their pockets and help fill ours. It shouldn't be about 
        quantity, but more about quality.
          (454) Sounds like a monopoly. This must be stopped!
          (455) Stimulation of entrepreneurs can create a significant 
        growth trend and to focus on the small farmer, who can respond 
        to changing demands quickly is prudent.
          (456) Stop driving small farms out of business. You are 
        supporting the producers of the worst food in the USA. Time to 
        stop.
          (457) Stop giving away free money to rich people!
          (458) Stop letting big businesses try to take out the small 
        business. Small business is the heart of jobs and keeping 
        America working.
          (459) Stop making our farms struggle. It's all we have to eat 
        healthy foods.
          (460) Stop Monsanto, Dow, and Bayer Chemical from destroying 
        our food and our Earth.
          (461) Stop paying the biggest farmers, farms and support 
        small farms, sustainable farms, healthy production practice.
          (462) Stop punishing small and organic farmers just to make 
        the chemical and factory farming interests think you have 
        worked to justify the ``political payola'' they paid to you. 
        It's time to level the ``playing field.''
          (463) Stop selling out your constituents' interests to the 
        highest bidder. You were elected to represent the people of 
        your state, not the corporate institutions that are stealing 
        from them everything of value, including the future of this 
        country.
          (464) Stop subsidizing the largest corporate farms. Spend 
        money for small farm preservation and growth in local 
        communities.
          (465) Stop subsidizing the largest farms.
          (466) Stop subsidizing the nation's largest farms, stop 
        driving smaller farm operations out of business.
          (467) Stop the political payoffs! Stop promoting things like 
        farm bills that you have no knowledge of. The rhetoric only 
        makes sense to dummies.
          (468) Stop the subsidies completely. Even paying crop 
        insurance for agribusinessmen is unnecessary. Put in more 
        conservation programs. As I drive across Iowa and Nebraska, I 
        see dust storms and dirt blowing everywhere. We need programs 
        to stop erosion and to counteract all the tree loss which 
        farmers are now causing.
          (469) Stop unlimited payments to the largest farms and 
        support the small rural farmers who need the money the most. 
        Invest in good stewardship and conservation programs. The 2012 
        Farm Bill needs your (Congress) support the Value Added 
        Producer Grants Program and Microentrepreneur Assistance 
        Program. Set aside more for beginning farmers and ranchers and 
        make credit easier to obtain. In doing the above more jobs will 
        be created, HELP our small towns and rural communities, this is 
        America reflect our values.
          (470) Stop using chemicals on food products that harm our 
        health. Stop factory farms! Stop abusing animals that are 
        heading for our food chain. You would be prosecuted for 
        treating your dog like you treat many farm animals.
          (471) Strong payment limits will help to prevent the 
        continued unraveling of rural America. Stand with the backbone 
        of American Agriculture, the small and medium sized farmers, by 
        ensuring strong payment limitations, conservation programs, 
        rural development programs and programs to help support the 
        next generation of farmers.
          (472) Subsidies should be to help those who need financial 
        assistance to become a viable taxpaying entity. Not a money 
        give away to those with influence in Washington.
          (473) Subsidies to large commodity producers are one of the 
        most wasteful uses of taxpayer dollars. I encourage you to 
        support programs for small and mid-sized farmers, for beginning 
        farmers, for conservation programs, for rural development and 
        for nutrition/school lunch programs. Thanks much.
          (474) Support the USDA RMAP program which provides much 
        needed loan capital AND technical assistance for small town 
        businesses in rural America.
          (475) Support beginning farmers by creating program to help 
        succeed.
          (476) Support equality in crop insurance for organic 
        producers.
          (477) Support family farming and small farms.
          (478) Support family farming!
          (479) Support family farms and ranches, invest in 
        entrepreneurship opportunities in rural America and help us 
        grow vibrant communities!
          (480) Support family farms and small businesses!
          (481) Support family farms, not huge agribusinesses. We want 
        safe food, not chemically treated food.
          (482) Support farmers not agribusiness!
          (483) Support Food Security And Support the Economy. Create 
        legislation that will allow as many Americans as possible to 
        farm. Create programs that support local food, organic food, 
        sustainably grown food.
          (484) Support local family farmers!
          (485) Support our small farms! Unlimited subsidies to the 
        nation's largest farms don't make sense. Show America's small 
        family farms and beginning farmers that you prioritize their 
        success!
          (486) Support people who have an interest in protecting and 
        preserving our land by carrying on the tradition and work 
        needed for our survival.
          (487) Support programs that emphasize sustainable farming 
        practices.
          (488) Support rural communities and beginning farmers 
        eliminate subsidy payments to corporate farms.
          (489) Support small and local organic farms. Not agribiz and 
        factory farms.
          (490) Support small family farmers, they are the backbone of 
        the USA, not giant agribusiness.
          (491) Support small farms because they are the last thing 
        that keeps us connected with ``real'' sustainable local food.
          (492) Support SNAP and SCHOOL LUNCH! They need more help!
          (493) Support the conservation programs--including the RC&D 
        programs.
          (494) Support the Food Sovereignty movement.
          (495) Support the small farmer, they feed their local 
        communities
          (496) Support true farming. Use means testing for Ag 
        supports.
          (497) Sustainable food systems are the life blood of our 
        country. Access to healthy local foods and the support of 
        farming will keep our country healthy and re-educate Americans 
        on how to be proactive in personal health and well being.
          (498) Take care of the small farmers. They will be the saving 
        grace of the rural economy.
          (499) Tax payer money has no business paying farmers not to 
        produce. Free will, supply & demand should be what determines 
        the market . . . Not the Government, not greedy corporatism big 
        business. Companies & business should fail if they are corrupt, 
        have bad management etc. . . .
          (500) Tax-payer funded direct payments have ruined small 
        family farms, causing the demise of small towns all over 
        America, until nothing is left but massive agribusiness 
        operations. There is no longer any care or concern for the 
        land, and these producers are among the country's wealthiest 
        people. Please do not continue subsides which have caused so 
        much harm.
          (501) Thanks for the good work :-)
          (502) That is what the American dream was all about. Where 
        did it go. We need this.
          (503) That's perfect! Maybe add crowdfunding to funding 
        mechanisms, such as a small lender guarantee program.
          (504) The 2012 bill needs to simplify and enhance its 
        beginning farmer programs. Current programs are underfunded and 
        hard to apply for.
          (505) The 2012 Farm Bill must support the best of rural 
        America--family farming and ranching, entrepreneurship, and 
        vibrant communities. To that end, the next farm bill must 
        include the following: 1. Limit farm payments--Cap unlimited 
        payments. They subsidize the nation's largest farms to drive 
        smaller operations out of business. Unlimited subsidies are the 
        single most wasteful and counterproductive feature of current 
        farm policy. Both farm subsidies and crop insurance premium 
        subsidies should be subject to caps, so that payments are 
        targeted to the small and mid-sized farmers who need them most. 
        2. Protect conservation programs--Conservation and good 
        stewardship of agricultural lands should be encouraged and 
        rewarded. The 2008 Farm Bill included several conservation 
        programs that were steps in the right direction, and the next 
        farm bill should improve and enhance these programs. The 
        Conservation Stewardship Program and the Environmental Quality 
        Incentives Program Organic Initiative are especially valuable 
        incentives for farmers to conserve natural resources on their 
        land. The 2012 Farm Bill should maintain strong support for 
        both these and other conservation programs. 3. Invest in rural 
        America--Investment in rural development has fallen by nearly 
        \1/3\ since 2003. Reversing this decline is critical to 
        creating and sustaining vibrant rural communities. At minimum, 
        the farm bill should fund two critical programs to support 
        rural entrepreneurship--the Value Added Producer Grants Program 
        and Rural Microentrepreneur Assistance Program. The latter 
        provides loans, training and help with business and marketing 
        plans to enterprises with up to ten employees. 4. Support 
        beginning farmer and ranchers--Getting started in farming can 
        be expensive and extremely difficult for even the most 
        motivated new farmer. The 2012 Farm Bill must seek a cross-
        cutting comprehensive approach to address beginning farmer and 
        rancher needs. Among other things, it should provide funding 
        for the Beginning Farmer and Rancher Development Program, 
        increase set-asides for beginning farmers and ranchers in 
        conservation programs, and make credit easier to obtain. By 
        incorporating these four critical elements, the 2012 Farm Bill 
        will support our small towns and rural communities in building 
        a better future. It will create good jobs, and reflect the 
        highest values of all of America.
          (506) The 99% should just jail the 1%. The rich people in 
        America are a criminal class.
          (507) The backbone of our country is the small and midsize 
        farmer and rancher. It is about time they get help--Not the 
        corporate giant.
          (508) The beginning farmers and rural America need 
        assistance, not the big boys farming thousands of acres. They 
        already make it hard enough for others to get started. Or treat 
        everyone the same and get rid of it period!
          (509) The best food and the best jobs are local grown.
          (510) The choices that you make now will impact small farms 
        forever . . .
          (511) The concept that a farm bill making wealthy producers 
        more wealthy with corporate welfare from our tax dollars 
        without giving substantial support to organic farms and those 
        treat soil, animals, ground water, etc with long-term 
        sustainable methods is a Criminal Act against the future of us 
        all.
          (512) The family farms are what started this country and fed 
        it. They deserve any help that will keep them solvent and 
        competitive with corporate farms. Their products and produce 
        are healthier for us too!
          (513) The farm bill affects too many people for it to become 
        the domain of a privileged few. The current version cuts too 
        much from our anti-hunger programs, throws conservation to the 
        wind, and remains a boondoggle benefitting a few wealthy 
        corporations with inordinate control over our food system.
          (514) The farm bill has to protect and help small and mid-
        sized farmers--not only corporate farms. It's these smaller 
        farms that keep agriculture alive and diversified--and America 
        great.
          (515) The farm bill is a lifeline for many rural 
        Wisconsinites. It is unfair to put the Haves against the Have-
        Nots when it comes to an area which already gets less attention 
        than it deserves. I hope you will stress these four elements 
        into the farm bill.
          (516) The farm Bill is being abused for large chemical 
        corporations and rich land owners. This money should be going 
        to REAL farmers growing real food not GMO's, not rich investors 
        who don't even farm.
          (517) The farm bill is the most critical Federal legislation 
        for protection of soil and water quality in Iowa and other 
        agricultural states. Funding for conservation programs should 
        be strengthened rather than cut as proposed by the Senate Ag 
        committee.
          (518) The farm bill is to promote agriculture we can keep up 
        with indefinitely and to support small and medium farmers. It 
        is to protect farmers from bankruptcy, as the old grain reserve 
        used to do, not support them for unlimited exploitation.
          (519) The farm bill needs to redirect its energies to helping 
        responsible and ethical agriculture grow in the U.S. It should 
        not solely be a tax or corporate welfare bill for large, 
        industrial agriculture. I know we need to be competitive 
        globally but more importantly we need to provide nutritious, 
        environmentally grown food and make access to that food a 
        pillar of our efforts. We are dealing with the long term health 
        & well-being of our people and our planet. In my company we 
        make responsible food choices everyday that impact the lives of 
        our customers, our workers and the communities we live in . . . 
        it is time for our Federal leadership to do the same!
          (520) The farm bill should address needs of small farmers and 
        ranchers. Preserve and continue to fund the 2501 Program to 
        ensure that small producers have outreach and technical 
        assistance to make them successful.
          (521) The farm bill should also include a strong farmland 
        protection program.
          (522) The farm bill should also incorporate provisions for 
        organic farmers. There is a growing number of Americans who do 
        not want GMO's and pesticide laden food. Monsanto and Dow do 
        not need subsidy. They need more oversight. They are allowed to 
        unload their inferior product on the American public to ruin 
        our health, all with the aid of our tax dollars. Corporate 
        farms are not the only method of farming and our farm bill 
        needs to be able to address all aspects of America's diverse 
        farms.
          (523) The farm bill should be about all farmers, not biased 
        toward mega operations, which have hurt farming in America. 
        It's time we stop wasteful and unnecessary subsidies to big 
        companies and make those dollars really matter for small town 
        America, conservation, and small businesses.
          (524) The farm Bill should be designed to help those who need 
        it most, not help the rich get richer.
          (525) The farm bill should be helping to promote local family 
        farms and agriculture not the industrial, corporate or factory 
        agriculture that truly do not need the American taxpayers help. 
        We should also be establishing and expanding programs that 
        preserve the environment and agricultural land through 
        conservation programs. Americas small family farms truly need 
        America's help. We need to prioritize and work for those 
        actions and items that are truly important.
          (526) The farm bill should include micro entrepreneur 
        programs specifically for individuals with disabilities who 
        want to farm, develop co-ops, raise live stock, etc.
          (527) The farm bill should support several things regarding 
        the practice of agriculture: (1) conservation, (2) support for 
        small and beginning farmers, and (3) organic produce. 
        Additionally, efforts should be made to support small 
        businesses that create value-added products from farm produce. 
        Finally, food (organic especially) should get to people who are 
        hungry (SNAP, food banks) and to schools in non-processed form. 
        These measures would support sustainable agriculture and rural 
        communities by providing labor (e.g., cooks in school kitchens, 
        labor in the value added businesses); it would help keep food 
        local, thus saving transportation costs, and keeping money 
        circulating in the local community. Thank you for your 
        attention to this matter.
          (528) The farm bill was envisioned to help struggling farmers 
        and has evolved into a giveaway program for rich farmers. 
        Please support those farmers that are struggling to feed us 
        with wholesome and non-toxic food.
          (529) The focus of agriculture should be on local production 
        as much as possible to lower transportation costs and increase 
        quality and freshness.
          (530) The future of the planet depends to a high degree on 
        our agricultural system. Our present one, corporation farming 
        is totally broken. Global warming and the overall condition and 
        functioning of our planet (we only have this one) depends on 
        getting a holistic agriculture.
          (531) The heart, health and future of America depends on 
        local sustainable farms. The farm bill should be to the benefit 
        of small to medium farms and not going to large farms that 
        already control a large portion of the market and have a much 
        larger carbon foot print.
          (532) The large commercial farms are not producing the 
        products that America wants or needs. Small farms can do that 
        and in the process create a better, more secure America. Bigger 
        is NOT better and in many cases NOT desirable.
          (533) The largest farms do not need unlimited subsidies. 
        Small farms do. This is an issue of food safety and 
        sustainability. More people, like myself, are buying food from 
        small local farmers. The 2012 Farm bill must protect and 
        support them. The mega farms are doing fine without unlimited 
        subsidies.
          (534) The little farmer needs help. The large farmers do not.
          (535) The most important thing for the health of our food 
        supply is to support small vs. mega farmers--and it would go a 
        long way to help our economy and environment!
          (536) The playing field needs to be leveled. Big Ag is just a 
        bully to the small and midsized farmer. Time to tell the bully 
        to go home and make way for the little guy.
          (537) The proposed farm bill is only more corporate welfare 
        for Big Farmers and does absolutely nothing for family farmers 
        . . . we are fifth generation farmers here! Anyone who tells 
        you differently is in the pocket of corporate America already!
          (538) The respect for the planet movement will finally 
        eliminate legislators not in touch with the seriousness of this 
        huge movement. The new silent majority.
          (539) The resurgence of agriculture in northern NY has been 
        driven by community supported agriculture. (CSA). Seed funding 
        to promote CSA as a rural economic driver in distressed 
        communities would be a great addition to this bill and 
        supported at a fraction of unlimited payments.
          (540) The small and medium farmers are on the whole far 
        better stewards of the land and far more likely to practice 
        sustainable farming. Enough erosion and chemicals in our air 
        and water already.
          (541) The small and mid-sized farmers actually matter the 
        most.
          (542) The small farm needs the all payments he can get not 
        the farms operating under many names and operations getting 
        paid huge payments.
          (543) The small farmer needs help. They are an important part 
        of our economy.
          (544) The small farmers are the backbone of our community and 
        need help much more than the agri-farms.
          (545) The small needs help.
          (546) The success of our country is dependent on the health 
        of our communities and the knowledge we have of our regional 
        ecosystems. This knowledge will enable state and local 
        economies and cultures to flourish. This new paradigm is not a 
        backwards shift but a much needed integration of the 
        educational, environmental, economic and cultural systems. Our 
        increased awareness of the gifts of our local ecosystems will 
        pay itself back in creative regional manufacturing 
        opportunities, accountability for the sake of improved 
        community relations and economic opportunities. Change is 
        inevitable--accountability is necessary and educational 
        integration of these systems is necessary to begin to move our 
        nation towards fair, prosperous and creative systems that reap 
        rewards for us all. The next farm bill should incorporate 
        regional ecosystem education in all grades of public schools--
        this knowledge will lead to much healthier communities and 
        creative innovations.
          (547) The U.S. young farmers who will farm sustainably, not 
        mine the soil and farm the government. We need farmers who will 
        help sustain their communities by producing and providing a 
        safe, secure and sustainable food supply to all people 
        including the poorest and most vulnerable. Industrial food 
        factories and transnational agribusinesses do not do that. 
        Independent family and individually operated farms do.
          (548) The Value-Added Producer Grants (VAPG) and Rural 
        Microentreprenurial Assistance Program (RMAP) make a real, 
        sustainable, fantastic difference in our communities. It's 
        tailored to exactly what we need by the folk in who live there. 
        Give us the means to help ourselves and our rural communities. 
        We feed you--don't starve us.
          (549) The values of small farming are multiple: in touch with 
        the Earth, possibility of sustainable farming, opportunities of 
        working together, a means of supporting self and family.
          (550) There are a lot more people who want healthy food in 
        Minnesota than there are industrial farmers. Cap the 
        subsidies--in fact, just stop them and invest in healthy food 
        grown in healthy environments.
          (551) There are so few who decide to go into farming. You 
        should be supporting these start up farmers and develop 
        programs that reward good stewards of the land.
          (552) There is a trend--across all industries and interests 
        in this country--for government policies to help those who need 
        it least. This should not be the role of government. In 
        essence, the actions of many of our legislators are being 
        heavily influenced by powerful lobbying interests, leading to a 
        government of the wealthy and powerful people, by the wealthy 
        and powerful people, and for the wealthy and powerful people. 
        It's time to put a stop to this nonsense. Please consider the 
        important role that small and mid-sized farmers play in this 
        nation's economy, the conservation of our nation's resources, 
        and the health and survival of our rural communities and focus 
        the farm bill on them, Not the privileged agribusiness firms.
          (553) There is absolutely no justification for providing 
        subsidies to large farmers. They already have cost of scale 
        advantages. The money could be spent much more wisely, to 
        promote smaller farmers, conservation, rural development, 
        healthy and organic food, fruits/vegetables, etc.
          (554) There is so much at stake for the health and economy of 
        our nation--Don't keep subsidizing crops (corn and soy beans) 
        that produce unhealthful, addictive foods--while what we really 
        should be eating--fruits and vegetables--get such little help.
          (555) There should at least, be payment limits ton large 
        farms and there needs to be more money and support for small 
        farms.
          (556) These are reasonable approaches to promoting family 
        farms.
          (557) These are the same hypocrites who lie to the younger 
        folks about the elderly not saving retirement money when in 
        fact we paid & made Social security what it is, we also paid 
        into pensions that some of these folks ripped off via their 
        lobbyists & corporations. These same people have divided the 
        American people(not since the civil war has this happened) with 
        their lies & their selfish acts. Insurance companies are the 
        bane of human existence & never be allowed to be giving anyone 
        special favors like decreased premiums to bigger farms. That's 
        part of the division!
          (558) These ideas will protect small business, small farms 
        and is on course with the direction of our country.
          (559) These Inequities Must Stop Now! Stand for the People 
        Not Big Agra!
          (560) These measures along with winding down the unhealthy & 
        unnecessary subsidies to America's wheat & corn crops and 
        channeling those funds to support healthy foods would go a long 
        way toward helping our obesity problems!
          (561) These must be included in the farm bill for 2012.
          (562) These people are the lifeblood of this country
          (563) These policies help to restore the value of people in 
        our agriculture, please support these efforts.

          (564) These Things Must Be Approved To Help Our Farmers Grow 
        Like They Need To Do.--Barbara & Wayne.

          (565) These young people will not be able to farm without 
        help. Even if they inherit the family farm, taxes will cause 
        them to go deeply into debt. How should this be paid for? Try 
        plugging the $4 BILLION hole called ``Additional Child Credit'' 
        that is a tax refund that is going to illegal's and even to 
        families with nieces and nephews that do not live in the USA.
          (566) They have fed us, clothed us, and been the glue that 
        has held America together. Will we now turn our backs on our 
        family farms and ranches, I hope not.
          (567) They have totally forgotten about disadvantaged farmers 
        and ranchers who are already in danger of losing their 
        livelihood in this area.
          (568) Think about helping urban farmers, and those beginning 
        farmers who are very close to urban centers. This is a wise use 
        of limited resources (fuel for moving the produce) as well as a 
        nice way to green-up the cities with trees and plants.
          (569) This bill is an opportunity to return to real American 
        values of wholesome food production, humane husbandry, and 
        respect for the land. Don't use it to subsidize abuse.
          (570) This bill makes good sense for the long term.
          (571) This has been put most eloquently and precisely. I am 
        happy to endorse this presentation.
          (572) This is a very important issue, and it's not just about 
        rural America--it affects the rest of the country, too. Thanks 
        for listening.
          (573) This is immoral and you know it.
          (574) This is important! I would like very much like to have 
        a small farm someday, farm land is very expensive right now, 
        but that is what i am working for. it is my dream. why should 
        only the big farmers and the corporate farmers get all the 
        help? the biggest share should go to the little guys of less 
        than 100 ac. Thanks for letting me have mu say,--Mechele 
        Seubert.
          (575) This is not just a theoretical issue for those of us in 
        the Midwest. It's our lives. Historically the action is on the 
        coasts, but life happens in the middle, on the family farms. 
        Help us to protect them--it's our future--not just here, but 
        for our nation.
          (576) This is such an obvious place to help rein in the 
        Federal budget. Excessive subsidies for big farmers are not 
        good for keeping family farmers on the land, they are not good 
        for the land, and they are certainly not good for a balanced 
        budget.
          (577) This last year I lost my 95 year old mother and the 
        farm I had been brought up on. It got sold out from under me 
        because I couldn't get enough funding quick enough to buy out 
        my brother and sister. I settled for a very small acreage with 
        buildings (16 acres) and they kept what little cash I would 
        have inherited. Fortunately, my sons and I will be able to do 
        some specialty vegetable farming as well as raising fiber 
        animals but all of this would have been much easier if working 
        with the FSA were not so difficult.
          (578) Those that complain loudest about farmers are usually 
        doing it with their mouths full.
          (579) Time for Give-the-wealthy Big Farms to end!
          (580) Time to stop subsidizing the wealthy big farm 
        corporations--and helping the small family farmer.--E. Leopold.
          (581) To be able to grow and produce food for my fellow 
        citizens has been the only thing I have ever wanted to do. 
        Unfortunately, I wasn't born on a farm or with land handed down 
        to me. Somehow, I need to procure land and the ability to 
        produce food on it while supporting myself and my family. I 
        would like to be able to achieve that goal one day and the 
        programs offered by the current farm bill will allow me to do 
        that. Please do not cut these programs from the Bill. It is one 
        part of the multitude of taxes that I don't mind helping to pay 
        for.
          (582) To be healthy, Americans need to eat more fruits and 
        vegetables--BUT fruits and vegetables in quantity are too 
        expensive for many of us. So the farm bill should subsidize the 
        growing of fruits and vegetables.
          (583) To be healthy, Americans need to eat more fruits and 
        vegetables--but fruits and vegetables in quantity are too 
        expensive for many people. So the farm bill should be written 
        subsidize the growing of fruits and vegetables.
          (584) To REALLY support small business, facilitate America's 
        goal of upward social mobility and keep our food supply safe, 
        please support this in the bill.
          (585) Try having committee meetings out in the states, not 
        only in D.C. Get other viewpoints, for heaven's sake!
          (586) Ultimately, we will all pay the price for a lack of 
        small farms and farmers. Think about what your children and 
        your grandchildren will be eating . . .
          (587) Under #1--Limit farm payments--I would totally Stop All 
        Subsidies to everyone who now gets any since this sort of 
        governmental interference distorts markets and makes crop 
        prices depressed. The small farmers don't need props for 
        prices; they need the ability to let the market for their 
        produce find its natural level. Crop insurance is a necessary 
        evil. However, it must be uniformly low-cost and freely 
        available to all farmers as protection against crop failure due 
        to poor weather, pest infestations, and the like. Under #4--
        Support beginning farmers and ranchers--It is IMPERATIVE that 
        newcomers to farming and entrepreneurs in agriculture, 
        horticulture, aquaculture, etc. be afforded the ability to get 
        low-interest loans to start their operations. Purchasing land, 
        equipment, seed, irrigation equipment, etc. is all capital-
        intensive and requires a serious investment opportunity be 
        afforded such individuals.
          (588) Unlimited direct payments to large farmers has done 
        more to destroy family farms and rural communities than any 
        other factor involved. It has driven up land prices and cash 
        rents. The farm program and crop insurance programs are abused 
        by lying about yields especially in dry years like 1987-88.
          (589) Unlimited farm subsidies are wasteful and compete with 
        small and midsize farmers who do the most toward conservation 
        as well as yield. Along with that they support employment.
          (590) Unlimited payments to large farmers are preventing 
        beginning farmers from getting started. These large farms that 
        receive these huge payments use this money to outbid beginning 
        farmers, thus preventing new farmers from even getting a chance 
        to run new ground . . . we are constantly outbid and it is 
        because of these unlimited payments.
          (591) Unlimited payments will insure that eventually, we will 
        have one remaining farmer per county who will vertically 
        integrate the operation, further displacing locally owned rural 
        input businesses. We need policies that encourage the new entry 
        of young farmers and farm input businesses, not the continued 
        consolidation of the largest farms. The new farm bill should 
        have, as it's corner stone, federally subsidized crop and 
        livestock production insurance offering coverage ranging from 
        65% to 85% of the county's past 5 year per acre gross farm or 
        ranch revenue. This is basically a gross revenue per acre 
        insurance policy and it must be capped at $500,000.00 annually 
        per farm.
          (592) USDA is spending millions of dollars in taxpayer money 
        to subsidize the wasteful and unnecessary production of 
        commodities, primarily corn, soy, and wheat. This system, 
        renewed every 5 years by the farm bill, is grossly wasteful of 
        both money and natural resources, and constitutes a pure 
        giveaway of both to already wealthy agribusiness interests. The 
        American public no longer has an interest in increasing the 
        supply of commodity crops, which substantially are either 
        wasted along the supply chain or used for animal feed rather 
        than direct human consumption. America's once-great natural 
        landscapes have been converted into oceanic monocultures of 
        crops with no external purpose that a normal market would 
        indicate. Our interest instead lies in conserving our scarce 
        natural resources for a future in which our food security will 
        be far more precarious. For the sake of human health, we have 
        in interest in discouraging the excessive production of low-
        grade meat in excess of dietary requirements. We also have an 
        interest in sustaining the character, environment, and social 
        fabric of rural America, all of which are being torn apart by 
        an invasion of factory farms, an evacuation of residents that 
        can no longer operative competitively among the mega-producers, 
        and a steadily disintegrating natural environment that will be 
        incapable of adequate food production in the distant future. 
        Please rewrite the farm bill now to protect our natural 
        resources, send the agribusiness companies away from their con 
        job against rural America, and restore nutritional quality to 
        our food supply.
          (593) We all hear about banks too big to fail. Well, we have 
        farms and farmers too big to fail now, largely due to Federal 
        subsidies. They have squeezed out small farmers by not being 
        subjected to market forces and potential losses. It is not good 
        for the country to have $1 million (annual income) farmer 
        instead of ten or more smaller farmers.
          (594) We also need support for the REAP programs so thanks to 
        those who are including it in the their version. Renewable 
        energy is good for all parts of the nation.
          (595) We beginning & minority farmers need: Limited farm 
        payments + conservation program protection + financial 
        investment in rural America + funding for the Beginning Farmer 
        & Rancher Development all of which will create good jobs while 
        reflecting this country's highest values
          (596) We cannot afford to hand out huge sums of money to huge 
        producers who don't need that kind of support. We need to put 
        more people to work with living income, which means smaller 
        payments to more people, not bigger payments to wealthy giants.
          (597) We have a crisis on our hands, the active farm 
        population is aging and it is almost impossible for a young 
        person to start farming. Allow provisions in the new bill to 
        assist young aspiring farmers get started.
          (598) we have an old family farm, it had been in timber, 
        basically a CRP program, and yet we did not qualify for CRP, as 
        no row crops had been grown, to the detriment of our land for 
        years, so we received no Federal money . . . then last April 27 
        an EF5 tornado came through Chickasaw county, MS . . . the best 
        the Federal govt. could do for us, who lost 33 of 35 acres of 
        old growth Hickory and oaks, 200 years avg., and 40-50 yr old 
        pines and hardwood . . . wiped it out . . . FSA is offering us 
        $300 dollars after we clear the total devastation, to regrow 
        pine monoculture, after we pay for all expenses . . . this is 
        an extreme example of misuse of funds after a disaster, we are 
        not entitled to timber loss, or an estimated cost of replanting 
        that is reasonable . . . I say stop the ethanol subsidies, cut 
        back crop insurance protection for the rich 1%, and help small 
        landholders who want to make something of their land and 
        resources . . . if you as a representative cannot do this never 
        try to solicit my vote . . . if the people establishing the new 
        farm bill will not include conservation and first time farmer/
        rancher funds I will likely lose any opportunity to produce 
        anything with it, especially since local FSA does not think out 
        of box, for innovative crops for small farmers . . . too far 
        outside power structure . . .
          (599) We have four sons that would each like to farm on their 
        own, but don't see a way to because of the high price of land/
        rent. I teach and it is so sad that my students aren't sure 
        where their food comes from! We need more people tilling the 
        soil, not less!
          (600) We have had it with subsidies of large corporate farms. 
        Save the small family farm
          (601) We have no functioning nation without healthy farms.
          (602) We have so few wild animals left. When I was young and 
        we would go to my mother's farm which is just outside a little 
        town called Zurich, KS, there were Pheasants, Turkeys, Owls, 
        Hawks, and all kinds of wild animals including Opossum, 
        Raccoons, Bobcat, amongst others. The last 10 years especially 
        I have noticed these in dwindling numbers. Now there are very 
        few. Conservation assures that these animals have natural 
        habitat to live in as well as gives the land a usually much 
        needed rest. You city dwellers have no idea what these small 
        farms mean for the communities they are around. Why don't you 
        do something to help the world and limit the number of children 
        people can have instead of paying premium amounts and allowing 
        tax breaks to those who have large families. The major problem 
        the world faces at this time is human population, the ``man 
        animal'' (because humans are animals and belong to the mammal 
        group) and is the animal that is causing the most problem to 
        the Earth. Sincerely,--Laura L. Casey.
          (603) We may need to look out for the small people . . . 
        people that need to start green houses or community garden 
        projects. This is part of keeping our country independent.
          (604) We must protect and help small farms and small family 
        farms. Locally raised food and organic food is important to 
        many of us folks in America today. We need to help the little 
        guys make a decent living farming. Don Landstra
          (605) We need a comprehensive long-term, 20 year, farm bill 
        that works to save soil and improve U.S. ag not support 
        agribusiness, e.g., the Ethanol subsidies are pushing marginal 
        land into cultivation and paying for a non-food crop.
          (606) We need a farm bill that will support the rapidly 
        expanding ``real'' (edible) food production that is rampant in 
        Iowa. More corn is Not the answer!
          (607) We need a responsible farm bill
          (608) We need Family Farmers, NOT corporate farms!
          (609) We need farmers!
          (610) We need many smaller farms for a healthy farm economy 
        that sustains life in our rural communities! I'm so glad young 
        people are still drawn to this vocation. We need to help them 
        survive! The big operations don't need help.
          (611) We need more farmers, we need younger farmers. We need 
        speculators out of the commodities markets. and we need 
        millions of more acres of organic production to meet the 
        demand. Organic acres organic farms organic livestock. Policy 
        people have no clue on how many acres are needed to meet the 
        demand. We also need policing of organic certified companies 
        and farmers because of the demand.
          (612) We need more money for beginning farmers
          (613) We need more SMALL farmers who really need help Not 
        more big ones who already control most of the markets!
          (614) We need more small farmers! Please help them and not 
        these mega corporations that want to take over the entire 
        industry! Help the family farms stay in business. Thanks JIM
          (615) We need more small, local farmers growing a variety of 
        fruits and vegetables, nuts, herbs and spices and raising 
        healthy pastured animals. And a lot fewer corporate agriculture 
        producing monocrops and CAFO animals that are bad for the 
        environment and are health and are cruel. Stop subsidizing the 
        foods that make us sick.
          (616) We need much more preservation action taken on all 
        levels, in all areas of America to preserve rural America for 
        many decades to come! No more sprawl, metro annexation, big 
        roads, population increases, etc.! Protecting rural areas is 
        the most beneficial thing to do in conserving American 
        farmland!
          (617) We need our small farmers to survive as a country. Stop 
        giving money to the big farmers to save for the small one.
          (618) We need rural farmers. it's not fair to only support 
        the big guys! I want my money to go to the small farmers
          (619) We need the farm bill to keep our agricultural system 
        strong for the future by investing in conservation and beginner 
        farmers and ranchers; and by keeping it diversified through 
        investment in small scale producers and rural areas. Thank you!
          (620) We need the support,
          (621) We need to be good and just caretakers of our 
        resources. That means that the goods of the Earth belong to 
        all!
          (622) We need to be growing our own food!
          (623) We need to be promoting local food and local producers 
        so jobs and money stay in the state, not funneling it out of 
        state to big corporations who don't care about us. Those 
        lawmakers who say they promote small business and local 
        producers will support provisions that build rural communities 
        and, especially, young people.
          (624) We need to continue to support provisions to provide 
        technical assistance to new and beginning farmers and fund 
        EQIP's organic initiatives which benefit small-scale producers 
        with cost-share programs on hoophouses and high tunnels.
          (625) We need to ensure the opportunities for farming to 
        continue on a small scale. For the good of our country and the 
        overall population within, let us protect and support those 
        individuals who are willing to farm America.
          (626) We need to make the farm bill work for small family 
        farmers and it needs to have provisions to feed those most in 
        need.
          (627) We need to protect our farms and our farm land.
          (628) We need to protect our small and mid-size farmers 
        because that's good for the economy and good for the 
        environment. The Conservation Stewardship Program and the 
        Environmental Quality Incentives Program Organic Initiative are 
        especially valuable incentives for farmers to conserve natural 
        resources on their land--we need much more support for these 
        and other conservation programs!
          (629) We need to stop subsidizing big agribusiness at the 
        expense of small and midsize farmers, who actually supply us 
        with more healthy food than the ``big boys.'' Cap farm payments 
        to large corporate operations and support small farmers. 
        Protect conservation programs that help make organic farming 
        sustainable both for the farmers and for the Earth. Invest in 
        programs that support rural America. And support beginning 
        farmers and ranchers! Farming and ranching used to be handed 
        down from one generation to the next. We've lost that 
        generational connection. We need to make it easier for young 
        people to learn and start farming.
          (630) We need to support family farms which are the backbone 
        of this country. Stop Unlimited pavements that subsidize the 
        nation's largest farms and drive smaller farmers out of 
        business.
          (631) We need to support new farmers.
          (632) We need to support our returning veterans and providing 
        them financial means to lead us into the next century with a 
        viable farm program for success is the way to go. Let's do it! 
        They gave their all for us, let's do the same for them.
          (633) We need to support rural development and small and mid-
        scale farmers, not the big corporate farmers.
          (634) We need to support the small farmer!
          (635) We need to take back America and this is a good place 
        to start.
          (636) We should be looking after the family farmers and 
        encourage more help for the young beginning farmer who is just 
        getting started in farming not the big corporate farms.
          (637) We should continue to reduce farm support payments. 
        Education and research should be the main thrust of our 
        agricultural policies.
          (638) We should not be subsidizing big farms. The little 
        farmer is important here and if anything we should be 
        subsidizing him.
          (639) We should spend more on conservation and on loans or 
        subsidies for small and medium sized farms.
          (640) We the people need small farmers and ranchers.
          (641) We want to maintain a well rounded economy. That means 
        generating and protecting the multiple variety of small farming 
        operations that contribute to and maintain a diverse base for 
        the economy.
          (642) What agriculture the 3rd District has is small farmers, 
        not giant agribusiness. Don't support further subsidies to the 
        best-off agricultural enterprises.
          (643) What are called `hobby farms' `community farms' etc. 
        needs attention! These `sub-culture' farmers are adding a lot 
        of Farm Products via the Farmer's Markets (7,000+ in USA). If 
        given some `seed money' via `Land Banks' `Granges' they could 
        become full production Farms. Especially here in Coos County, 
        Oregon. Until, the 1940's our largest `cash crop' was 
        Agriculture, why not again; we still have the land (under-
        utilized), Sun and Water. We are two to three generations away 
        from the `true' farmer. Geno Landrum
          (644) What Congress does should always encourage and never 
        discourage small farmers. Diversity is a word Americans love. 
        But in Agriculture, what does it mean? It means many places to 
        grow food and many kinds of food--not big centralized, 
        industrial model agriculture. Let's keep American agriculture a 
        great place to be a small farmer. Everyone will benefit. Do you 
        really want your food supply all in one basket?
          (645) What ethical justification can Congress possibly come 
        up with for not supporting rural development and continuing to 
        allow the rich farm companies to get richer--this country 
        depends on the middle class and it's time we get back to our 
        roots!
          (646) What happens to consumers when their choices are 
        narrowed down to a few choices? We are headed for an oligopoly 
        of the worst sort. What will become of us when corporations 
        with only esurience as a motive? Keep the production of food 
        diverse. Community based agriculture must be given priority 
        over Wall Street.
          (647) When all the land and all the money is held by 
        multinational corporations, the rest of us become slaves and 
        beggars.
          (648) When I had an 8,500 acre cotton operation in west Texas 
        in the late 1980's I only received $50,000 in subsidies other 
        than land that was in CRP
          (649) When Obama ran for president on his flyers was a 
        section about rural farmers, I took it home. I am taking 2 
        classes at Clemson on the subject in the fall. I am wanting to 
        be a tree farmer of some type (not Christmas trees) I don't 
        have money to go buy a lot of equipment or many acres to plant 
        unless I can get some sort of grant. I am in Georgia and grew 
        up in SC so I would prefer this area. The republicans seem to 
        always favor the rich people or corporations. I vote both ways 
        but since Obama stated about helping rural farmers, lets go 
        democrats pass some small person/family help here. It is always 
        big farm corporations trying to corner the market to force 
        their angle on everything.
          (650) When our agricultural system is controlled by large Ag 
        businesses, the rest of farmers and consumers suffer. Here in 
        Vermont we have a new economy of locally grown, diversified 
        foods, and it is contributing a lot of new money to our state. 
        It would be nice if the U.S. government would help support us, 
        rather than try to destroy us by supporting only big AG.
          (651) When we take care of the small businesses including the 
        farms, we support the foundation of America making us all 
        stronger.
          (652) Why does Congress continue to drive small and 
        successful farmers out of business and just favor the top 1% 
        farmers? Take care of the 99%!
          (653) Why pay farmers in the good years? It's the bad years 
        that we need it the most? Think about it! We farm with our two 
        sons and are by no means considered ``big''. But we are 
        surrounded by a ``big'' farmer who pays big rent and buys up 
        the land around us. What kind of future do you think our sons 
        have? Use some commonsense which I hear there is a shortage of 
        in D.C.
          (654) Why should the biggest, wealthiest farmers get 
        unlimited payments, while Congress is cutting programs to small 
        and mid-sized farmers? This makes No sense to me . . . I 
        respect our small-midsized farmers a lot more than the big ones 
        . . . they Care a lot more about me and what I eat . . . please 
        do the right thing and help our small farmers . . . thank you.
          (655) Why so mean?
          (656) We needs agriculture and the jobs that it will provide, 
        any help from farm bill funding is necessary, especially to 
        small farmers.
          (657) Will Rogers, about topsoil: ``They don't make none of 
        it no more.'' Conservation of soil and water are tantamount to 
        productivity benefiting all Americans. Therefore, Conservation 
        programs should be maintained and encouraged in the farm bill. 
        Hunger: SNAP (Supplemental Nutrition Assistance Program; 
        formerly ``food stamps'') has grown by 70% from 2006 to 2011. 
        Unemployment grew by 94% during the same period. Cutting hunger 
        programs does not solve job loss. Provide jobs and hunger 
        issues will be resolved.
          (658) Without Famers you wouldn't eat!
          (659) Without food on our tables, the future doesn't look 
        very rosy!
          (660) Without the `family' farm, there will be no families to 
        carry on our heritage and traditions. The `Big Box' producers 
        are not family friendly, nor are they Earth friendly.
          (661) Work and family define the rural communities of this 
        country. We see it around us every day and it is worth giving 
        it more support. Huge farms don't have the heart of the smaller 
        units in the community.
          (662) You could bring my PA community back to life if you 
        helped new farmers. And the people in the communities would be 
        healthier.
          (663) You eat well, right? It was your great grandfather, or 
        grandfather, maybe an uncle who made it possible. We owe an 
        equal chance to them, to farmers, who feed us so well. We need 
        rural development, sound conservation programs well funded, a 
        limit on payments to big farms, direct aid to start-up farmers. 
        You want your children and grandchildren to eat well, don't?
          (664) You eat well, right? It was your great grandfather, or 
        grandfather, maybe an uncle who made it possible. We owe an 
        equal chance to them, to farmers, who feed us so well. We need 
        rural development, sound conservation programs well funded, a 
        limit on payments to big farms, direct aid to start-up farmers. 
        You want your children and grandchildren to eat well, don't? 
        Ralph Watkins, a city dweller.
          (665) You have the opportunity here to be really forward 
        thinking, please do not squander it. Stand up for what is 
        right, not just for those with the most money to influence. 
        Sincerely,--Kristine Snowdeal.
          (666) You need to strengthen your small operators. They will 
        deliver better food and further develop communities than 
        continuing to pay people to do nothing (CREP & CRP) or granting 
        subsidies.
          (667) You should push for more farmers so no one will be 
        hungry.
                                 ______
                                 
                        Comment of Noreen Cerino
    Date Submitted: Saturday, May 19, 2012, 5:00 a.m.
    City, State: Reno, NV
    Occupation: Designer
    Comment: It seems that everything done in Washington lately is to 
the benefit of big corps at the expense of the people (those would be 
the people who elected you . . . remember them?). All your rhetoric 
about sustainability and ``green solutions'' while pandering to those 
who poison our food and destroy our ecosystem with GMO's is quite 
sickening and really doesn't fly anymore. Why don't some of you grow a 
backbone. Stop pandering to the people who are supplementing your 
``retirement funds'' and support small farmers who are growing clean, 
healthy food in a sustainable environment. Do you think it won't, or 
hasn't, affected your grandchildren? Or don't you care about them, 
either?
                                 ______
                                 
                        Comment of Sally Cernie
    Date Submitted: Friday, May 18, 2012, 5:38 p.m.
    City, State: Riverside, CA
    Occupation: Therapist
    Comment: Healthy Food Bill should replace farm bill. We want an 
Organic Farm Bill. We want farmers who care about the Earth and the 
people they provide healthy, nutritious food for.
    It is your responsibility to protect ``We the People.''
                                 ______
                                 
                      Comment of Barbara Chaisson
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Summerfield, FL
    Occupation: Retired House Cleaner
    Comment: As a consumer, I am more and more interested in purchasing 
organic foods for me and my family. I have major concerns about 
chemicals in my food . . . It is time to consider the health and safety 
of our citizens over the profits of big business. It shouldn't be about 
power and money, it should be about what is best for our country, and 
the soil that supplies us with our food.
                                 ______
                                 
                   Comment of Beverly L. Chamberlain
    Date Submitted: Tuesday, April 24, 2012, 4:55 p.m.
    City, State: Natrona Heights, PA
    Occupation: Food Manger, Dietitian, Cook for 60 people, Nursing 
Home
    Comment: I being a person whom work with food. Also use the Food 
Bank when I had to quit my job and go on SSI. A lot of starches, fast 
food for Micro-wave can food; that leads To Diabetes 2 for all ages. 
There should be more farmers donating more fresh food, fruits and 
grains, eggs, meats for the Food Bank, and Meals on Wheels, Daily cook 
Meals for Seniors at the Centers.
                                 ______
                                 
                      Comment of Donna Chamberlain
    Date Submitted: Friday, May 18, 2012, 4:28 p.m.
    City, State: Nevada City, CA
    Occupation: Gardener
    Comment: I think of myself as a producer, growing and feeding my 
family and friends in the best possible way I have learned in 82 years. 
The fact that we need to ``fight'', band together legally to keep our 
foods from being contaminated with sugar or corn syrup, fungicides, or 
buy vegetables and other products from grower markets, or take great 
measures to get and drink raw milk, buy from our local independent meat 
or chicken growers after such extreme effort by these producers to work 
and avoid the practices of large commercial producers who have been 
using antibiotics, ignoring natural feeding habits, living habits, and 
slaughtering habits that all influence the food value of these products 
and by so dong contribute to the failing health of our citizens. The 
idea that the govt. officials would dump foods at a private organic 
growers food sharing event and pour bleach on these wonderful foods 
scares--Scars, our hearts and minds about what government Is and What 
It Is Doing. Certainly not protecting the multitude of people, 
particularly those most dedicated to heath and creative work of our 
citizens and families.
                                 ______
                                 
                      Comment of Erika Chamberlin
    Date Submitted: Friday, May 18, 2012, 12:47 p.m.
    City, State: Brooklyn, NY
    Occupation: Wellness
    Comment: Please get with the program and get in touch with the 
desires and wants of the American people. We want a truly America the 
Beautiful from the inside out . . . topsoil down. You are very much 
behind the times . . . like 40 years! Thank you!
                                 ______
                                 
                        Comment of Dave Chambers
    Date Submitted: Friday, May 18, 2012, 12:40 p.m.
    City, State: San Francisco, CA
    Occupation: Wine Merchant and Educator
    Comment: As the committee considers the 2012 Food and Farm Bill, I 
urge you to:
Fight Hunger
    Maintain and beef-up (pun intended) nutrition programs. Please 
don't seek to balance the budget at the expense of our nation's most 
vulnerable--our children, the elderly, and the disabled.
Expand Farming Opportunities
    Fully fund the programs that support:

    1. New farmers

    2. Socially disadvantaged farmers/ranchers,

    3. Organic farming,

    4. Regional farm and food economies, and

    5. Rural development.

    We need more farmers and ranchers, more sustainable food 
production, and more economic opportunity in our food system.
Support Family Farmers
    Food diversity is not only sound strategy for a healthy food 
supply, it is wise economically. But competing with mega-farms who have 
benefited from decades of government support programs make it nearly 
impossible. Please support family farms, they really need our help. And 
please, stop supporting the continued monopolization of our food 
supply. We do not want to be held hostage to global food corporations 
who answer to share holders, not voters!
    End subsidies (aka direct payments and countercyclical commodity 
programs), and replace them with loophole-free agriculture risk 
coverage. Additionally, implement a cap on crop insurance premium 
subsidies;
Become Conservation Minded
    Ensure that limited conservation funding maximizes lasting 
environmental benefits: Limit funds to Concentrated Animal Feeding 
Operations (CAFOs) for animal waste management infrastructure by 
eliminating the Environmental Quality Incentives Program (EQIP) 
Livestock Set-aside and protect the Conservation Stewardship Program 
(CSP) from disproportionate cuts, and improve it by ranking 
applications solely on their conservation benefits.
    Many thanks for reading this far.
                                 ______
                                 
                     Comment of MarshaLee Champagne
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Madrid, NY
    Occupation: Museum Docent/Artist
    Comment: Please agree on a farm bill that will help keep our 
country healthy. Support good land stewardship by supporting the small 
farmers who practice organic farming--it's good for the Earth that has 
to support us in times ahead, and it's good for the citizens of the 
land.
                                 ______
                                 
                        Comment of Claire Chang
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Gill, MA
    Occupation: Solar PV and SDHW Installations
    Comment: We need to support Small Family Farms under $1 million in 
receipts. Cut support to Big Agribusiness. Cut Support to BioFuels. 
Increase support for diversity, organic, under 200 acres farms.
                                 ______
                                 
                          Comment of D. Chang
    Date Submitted: Sunday, May 20, 2012, 7:02 p.m.
    City, State: Honolulu, HI
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: You need to make the next farm bill fair to small 
producers, so they can afford to continue to feed their neighbors and 
local people. Too much government bureaucracy will cause them to go out 
of business.
                                 ______
                                 
                       Comment of Patricia Chang
    Date Submitted: Thursday, May 10, 2012, 1:51 a.m.
    City, State: Indianapolis, IN
    Occupation: Retired Registered Nurse
    Comment: If we refuse to help the elderly, who cannot afford 
adequate nutrition, we are an immoral, inhumane country, driven by 
greed and corruption. This is not the America I learned about as a 
youngster. This is a country that will fall into the abyss.
                                 ______
                                 
                     Comment of Lizettea Chang-Zahn
    Date Submitted: Friday, May 18, 2012, 5:53 p.m.
    City, State: Honolulu, HI
    Occupation: Business Development
    Comment: To say that I'm disappointed in my government is an 
understatement. When will politicians start doing their jobs and stop 
lining their own pockets. You're not there to scratch someone's back 
nor get your back scratched by someone. ``We the people'' have elected 
you to serve us and our best interest--Not Yours. How can you keep 
subsidizing farms and protecting the unhealthy Food and Beverage 
industries that are producing foods that are Killing Us And Our 
Children. Scientific studies can't be ignored nor results declared to 
have insufficient correlation between junk food and the health epidemic 
that we're currently under. Support whole, fresh foods that are grown 
in a healthier way that we need to become a wealthier and healthier 
nation. Subsidizing wheat, corn and dairy is fattening us and only 
making us sick. You're only serving yourselves, Coca-Cola, McDonald's, 
Frito Lay, Nabisco, and General Mills.
    When will you do the right thing for the United States of America?
                                 ______
                                 
                        Comment of John Chapman
    Date Submitted: Friday, May 18, 2012, 4:42 p.m.
    City, State: San Rafael, CA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: My understanding of natural systems, nature, is that 
congress and local municipalities must now promote and adopt and 
provide education and income with laws containing strict measures to 
move towards local organic sustainable permaculture based food and 
energy production methods.
    Local sustainable organic agriculture, and horticulture, of 
perennial based, nut and fruit trees, with rotation holistic grazing 
plans of needed livestock, will be the Only way to live on a planet to 
maintain biodiversity of species including ours. In short, nature has 
exact requirements, and fractional reserve banking that considers Only 
shareholders and Not the impact of petrochemical based mono-culture 
based crops, are an end game to human health freedom and stabilizing 
any local recourse's. The facts about of how mono-crops negatively 
affect culture, human happiness and health and the environment are well 
documented.
    It's time we have health and sustainable-based empowering 
government policies that promote self-reliant citizens, that learn to 
work together to live locally to produce food and energy, Not laws that 
focus on growing the economy which produces passive hopeless consumers, 
who in essence are digging there own graves, by avoiding there 
inevitable responsibilities to provide healthy food and energy for 
their communities.
    Please stop petrochemical based mono crop farming subsidies, and 
support perennial based organic agriculture and local food and energy 
production!
    Also--citizens need laws that promote local cooperation Not 
competition now. This is a new era. We must about face from top down 
business models and learn what it means to work with nature in a bio-
region to produce a healthy and abundant food and energy supply, in 
cooperatives, that are assisted by government Not attacked by 
government steered by giant monopoly corporations with unsustainable 
financial interests for their shareholders. This is All very doable, 
but the transition will be very challenging, and without true 
leadership, very messy.
    If humans in the U.S. and around the globe do not choose to adopt 
local sustainable living economies producing most of their own food and 
energy, we will All continue to be slaves to debt, like human livestock 
on global feedlot. Most people will serve and live through monoculture-
based agriculture, loss of culture community, and suffer elitist 
bankers, and fractional reserve banking requirement's based in 
inequity. Our species and most of the plants and animals that sustain a 
healthful diverse life will continue to decline rapidly, creating a 
poor living scenario for us all!
    That would be Earth genocide! A direct attack on nature, and don't 
forget we are nature. So--what are you waiting for? There are millions 
of citizens with true ethics and values of stewardship for nature and 
culture waiting for your lead on these critical issues that will shape 
our human experience on this planet inevitably for future generation 
and Now.
    Please ally yourself with the science and wisdom of sustainable 
organic agriculture and energy producers and permaculture communities. 
The days of factory farms and processed fast foods are coming to an 
end. Which side will you be on?
    Create legislation that includes biology of a region in the local 
economies. Help citizens farm in ways that assists nature to provide 
continuous abundant with food and energy with the fewest outer inputs. 
Remember Science will never save us alone, and good Science when used 
wisely is still only a hammer, not a substitute for nature's ability to 
self regulate in a bio region or even \1/4\ acre to provides humans all 
species abundant food and energy to feed 8 billion people.
    We transitions from to less debt based economies that won't be 
subservient to oil and All its systemic byproducts in debt, loss of 
human health, and natural life and diversity of species. Simple local 
solutions and simpler lives Will be necessary. Sell it, live it, be it! 
Let's Not destroy the web of life, of nature, that sustains us all. 
Nature is wise and will always self regulate.
    Thank you for your leadership on creating laws that move the U.S. 
quickly toward local sustainable food and energy production that 
promotes ecological diversity, and healthful local community based 
living.
    My question is how can elected officials in the U.S. government, 
encumbered by the weight of the pejorative top down business models 
that employ fractional reserve banking system, show real needed and 
timely courage and leadership toward organic sustainable local food and 
energy production? Or will government officials like you continue to 
put huge roadblocks in the way of proactive citizens who have solutions 
for local sustainable food and energy production?
    My hope is that you're ALL finally ready to move forward on the 
most critical issues of human existence. Let's work together the way 
our constitution was designed.
    We, the organic farmers, sustainable energy producers, educators 
and permaculturalists, and creative activists support you in these 
challenging times!
    Thank you.
            Sincerely,

John Chapman.
                                 ______
                                 
                    Comment of Heidi Chapman-Renaud
    Date Submitted: Friday, May 18, 2012, 10:00 p.m.
    City, State: Richmond, VT
    Producer/Non-producer: Producer
    Type: Fruits, Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: Please understand that you can make a difference. All the 
major problems facing our society today; energy consumption, climate 
change, habitat and species loss, and human health care relate 
integrally to how we produce our food and feed our selves.
    Please support laws that allow small farmers to thrive and make 
just decisions for life on our planet.
                                 ______
                                 
                       Comment of Sally Chappell
    Date Submitted: Friday, May 18, 2012, 3:59 p.m.
    City, State: Bridgton, ME
    Occupation: Homemaker
    Comment: I am interested in eating healthful, organic, locally 
produced food. Naturally, I want to patronize farmers who are able to 
make a living at what they do. I shun genetically modified products, 
but it is hard to do when they aren't labeled. My diet is becoming more 
and more restricted based on information I receive about the safety of 
our food supply.
                                 ______
                                 
                       Comment of Barbara Charis
    Date Submitted: Friday, May 18, 2012, 5:13 p.m.
    City, State: North Hollywood, CA
    Occupation: Health Researcher--Author
    Comment: There is nothing more important than health. 95% of 
sickness is caused by eating unhealthy food. Good health starts with 
the food we eat. It is crucial that our soils are vastly improved. 
Using 3 or 4 nutrients N-P-K-S is insufficient. There are 100 missing 
nutrients, which spells disaster . . . health-wise for Americans. The 
pesticides currently being used are contaminating the soils and the 
humans who are eating these toxin-rich, nutrient-poor crops. The 
pesticides being used are destroying the pests, but they are also 
wiping out beneficial bees, and the bats which feed upon these poisoned 
insects are dying en masse in the eastern United States. Pesticides are 
creating a major ecological disaster, which could cause very great food 
shortages in the near future. Unfortunately, those who are heading 
these agribusinesses are not thinking straight. Our government must 
take steps now to prevent serious future problems. Healthy soils create 
healthy people . . . converting to organic natural farming methods 
might cost the consumer more food-wise, but save big bucks health-wise. 
It is the only way to go.
                                 ______
                                 
                        Comment of Tavia Charnet
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: Vail, CO
    Occupation: Librarian
    Comment: I think it's big agriculture who's subsidies should be 
reconsidered as more & more people are interested in finding & buying 
organic and non GMO labeled produce. Please support the peoples demand. 
This is a choice for healthy living and I don't think the government 
should be behind making that choice closer to obsolete.
                                 ______
                                 
                         Comment of Mark Chasan
    Date Submitted: Saturday, May 19, 2012, 8:47 a.m.
    City, State: Roosevelt, NJ
    Occupation: Spiritual Aspirant
    Comment: Earlier this year more than 30,000 Food Democracy Now! 
Members signed a letter calling for an Organic Farm Bill. The letter 
was an idealized version of what a growing number of Americans are 
beginning to realize: that U.S. food and agricultural policy must focus 
on adopting best agricultural practices that put the health of its 
citizens, the land and the livelihood of farmers and farm workers over 
the interests of industrial agriculture lobbyists.

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Barbara Chasin
    Date Submitted: Sunday, May 20, 2012, 6:41 p.m.
    City, State: Ithaca, NY
    Occupation: Professor (emeriti)
    Comment: At a time of increased obesity, diabetes, and other 
diseases related to poor nutrition and environmental damage it is 
important to support legislation that protects the best practices in 
farming and to assist local farmers seeking alternatives to chemically 
produced food.
                                 ______
                                 
                       Comment of Matthew Chatham
    Date Submitted: Saturday, March 31, 2012, 3:01 p.m.
    City, State: Albany, OR
    Occupation: Student
    Comment: Hello,

    As an Oxfam supporter, I urge you to put the interests of hungry 
people and American taxpayers ahead of industry lobbyists and work to 
reform food aid's wasteful and ineffective regulations in this year's 
farm bill. With just two changes, we can ensure that aid actually 
reaches those who need it most and is one part of a long-term plan to 
help people lift themselves out of poverty.
    First, reforms must allow food aid to be purchased locally and 
regionally within developing countries. The 2008 Farm Bill created a 
small pilot program for local and regional purchase of food to prove 
that it can be done. Rigorous evaluation of this program has 
demonstrated that it can. Local and regional purchasing is a cost-
efficient and effective model to save lives and enable communities to 
build pathways out of poverty. The current pilot should become a 
regular program and receive funding as part of the core food aid 
program.
    In addition, Congress must provide organizations delivering food 
aid with adequate funding so that they can deliver lifesaving programs 
without having to use food as a fundraising tool. Some organizations 
that deliver food aid sell it to raise cash to fund their programs. 
It's perfectly legal, but totally inappropriate. This process, known as 
``monetization,'' is extremely inefficient and can damage local 
markets, hurting farmers and undermining food security. Food aid must 
be used to save lives, not as an inefficient and wasteful way to 
generate funds for organizations providing food assistance. The U.S. 
must eliminate the ``monetization'' of food aid.
    Please support these critical steps toward improving government 
food aid in this year's farm bill and helping fight hunger around the 
world.
            Thank you,

Matthew Chatham.
                                 ______
                                 
                      Comment of Eugene Chattelle
    Date Submitted: Sunday, May 20, 2012, 10:53 p.m.
    City, State: Perth Australia
    Occupation: Counsellor/Art Therapist
    Comment: It is vital that we protect our food for the future. Too 
much of our food is falling into the hands of multi corporations that 
are about making money and not about the quality and nutritional 
quality of our foods.
    Not only that the GM situation is putting our lives and the life 
our planet at risk . . . we only have to look at the dilemma with our 
bees!
                                 ______
                                 
                       Comment of Bonnie Chauncey
    Date Submitted: Thursday, May 10, 2012, 11:37 a.m.
    City, State: Oak Park, IL
    Occupation: College Professor, Retired
    Comment: Please don't cut SNAP! Too many hungry Americans are 
relying on this food. Too many hungry children will go to bed with 
empty stomachs. Please support funding for SNAP.
                                 ______
                                 
                         Comment of Tim Checca
    Date Submitted: Sunday, May 13, 2012, 12:01 p.m.
    City, State: McDonald, PA
    Occupation: Self-Employed
    Comment: Please do the right thing by passing a great farm bill. 
Money for new farming and organic farming . . . make sure chemicals are 
dealt with correctly if not organic.try to create new jobs by doing so. 
Let's Make America farm Please. Thank You For Listening To Us.

Tim.
                                 ______
                                 
                         Comment of Rhonda Chen
    Date Submitted: Friday, May 18, 2012, 10:18 a.m.
    City, State: Victorville, CA
    Occupation: Designer
    Comment: Please make the next Food & Farm Bill good, clean, and 
fair.
                                 ______
                                 
                       Comment of Peter Chenette
    Date Submitted: Thursday, May 17, 2012, 5:31 p.m.
    City, State: Hartford, CT
    Occupation: Retired
    Comment: I have been doing SNAP screening/application sessions 
through Foodshare Greater Hartford and End Hunger CT. The need remains 
out there, and increases by the month. Please consider rejecting the 
SNAP cuts.
    Thank you.
                                 ______
                                 
                          Comment of Tim Cheng
    Date Submitted: Wednesday, May 16, 2012, 10:13 p.m.
    City, State: Bodega, CA
    Occupation: Inspector
    Comment: I am an inspector with California Certified Organic 
Farmers and have been involved in organic agriculture for many years. I 
ask you to support monies for ``sustainable'' farming education, 
research and general support. Please do not support Genetically 
Modified Organisms. We need to curb the efforts of Monsanto Company and 
it's allied politicians to suppress seed producers right to save our 
collective inheritance of seeds. Thank you for your consideration.
                                 ______
                                 
                        Comment of Philip Cherry
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Mandeville, LA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: I endorse the Local Foods, Farms and Jobs Act (H.R. 3286) 
in full.
    We need to fully fund conservation programs, such as the 
Conservation Stewardship Program, and make sure that enrollment in any 
new insurance subsidies are tied directly to compliance with 
conservation programs.
    We need to implement all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236).
    We need to maintain the EQIP Organic Initiative.
    Keep the food stamp program fully funded. People are hurting out 
here in the real world.
    We don't need a $33 billion new entitlement program that guarantees 
the income of profitable farm businesses, on top of $90 billion in 
subsidies for crop and revenue insurance policies.
    We need more organic research funding and funding to support 
beginning farmers and ranchers--not less. Given high medical costs in 
this country, we need more health--not less.
                                 ______
                                 
                      Comment of Carol Chichester
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Enfield, NH
    Occupation: Disabled
    Comment: It is sad to say that I live in one of the most advanced, 
wealthiest nations on Earth and I am Afraid of the food I buy at the 
grocery store and wonder what the Manufacturers of it are doing to our 
bodies and our Earth.
                                 ______
                                 
             Comments of Chico Country Day School Students
                         comment of troy cardin
    Date Submitted: Sunday, May 20, 2012, 1:27 a.m.
    City, State: Chico, CA
    Occupation: Student.
    Comment: I don't want genetically modified foods, they are bad for 
me. We need to be careful about what goes into our bodies. I also think 
organic gardening should be widespread, in order to avoid poisonous 
pesticides getting into our bodies.
                        comment of morgen hopson
    Date Submitted: Wednesday, May 16, 2012, 8:12 p.m.
    City, State: Chico, CA
    Occupation: 6th Grader at Chico Country Day School.
    Comment: Dear Congress,

    I am a 6th grader and have been learning about our food and where 
it comes from. We have been discussing school lunches and would like to 
make a change. We would like:

  <bullet> more non-processed food

  <bullet> more vegetarian options

  <bullet> food that is cooked NOT microwaved

    Hope you put this in to consideration!
    Morgen Hopson.
                         comment of emily hyder
    Date Submitted: Wednesday, May 16, 2012, 8:43 p.m.
    City, State: Chico, CA
    Occupation: Student.
    Comment: I would like to see stores selling more organic and local 
products. I would also like to see less foods being sold that aren't in 
season. It would be nice to see more farms around to.
                         comment of molly lane
    Date Submitted: Wednesday, May 16, 2012, 7:58 p.m.
    City, State: Chico, CA
    Occupation: 6th Grader.
    Comment: For school lunches and cafeterias:

  <bullet> to recognize kids dietary needs

  <bullet> to have recycling bins and compost bins in the cafeteria

  <bullet> to support local business by buying their produce

  <bullet> to make most of the food right there in the cafeteria

  <bullet> to have fresh fruits and veggies
                         comment of lucas lantz
    Date Submitted: Wednesday, May 16, 2012, 10:54 p.m.
    City, State: Chico, CA
    Comment: If you could please take the time to address these needs 
that would be awesome.

    1. healthier choices for cafeteria food.

    2. change some things that count as veggies in the cafeteria such 
        as tomato sauce.Kids need fruits, veggies, and local foods to 
        stay healthy that's why you should address these needs. Thank 
        you for your time.
                        comment of regan murray
    Date Submitted: Wednesday, May 16, 2012, 8:47 p.m.
    City, State: Chico, CA
    Occupation: 6th Grade Student at Chico Country Day School.
    Comment: My sixth grade class and I think that the lunches at our 
school are disgusting, really processed, and unhealthy. We think that 
the kids here deserve better. We have come up with some ideas that we 
would like to be changed.

  <bullet> Locally/seasonaly bought

  <bullet> Homemade

  <bullet> Fresh fruits and vegetables

  <bullet> Healthier and more nutritious

    Thank you for reading this and please think about improving the 
school lunches.
                       comment of mikayla nichols
    Date Submitted: Friday, May 18, 2012, 9:41 a.m.
    City, State: Chico, CA
    Occupation: 6th Grade Student.
    Comment: Let's make school lunches healthier by buying our food 
locally and using our resources here in Chico.
                         comment of ty polosky
    Date Submitted: Thursday, May 17, 2012, 10:20 a.m.
    City, State: Chico, CA
    Occupation: 6th Grader at Chico Country Day School.
    Comment: I believe that there should be healthy school lunches for 
the people who can't afford healthy food such as berries and nuts. 
Everyone is sitting wondering why are we having an obesity epidemic it 
all starts with the food children eat. This is why I believe we should 
have healthier lunches.
                        comment of erika schroth
    Date Submitted: Wednesday, May 16, 2012, 9:32 p.m.
    City, State: Chico, CA
    Occupation: 6th Grade Student.
    Comment: I would love it if the food they serve at school could be 
grown local, we would be supporting local sustainable farmers. The food 
would be more fresh and healthier!
    Thank you!
                        comment of richard scott
    Date Submitted: Thursday, May 17, 2012, 12:19 a.m.
    City, State: Chico, CA
    Occupation: 6th Grade Student.
    Comment: The food in school cafeterias needs to be healthier 
because they have a lot of unhealthy choices with high fat and sugar.
                      comment of maddie sunderman
    Date Submitted: Wednesday, May 16, 2012, 8:50 p.m.
    City, State: Chico, CA
    Occupation: 6th Grader.
    Comment: I think you should bring in more locally grown meals and 
not just food you put in the microwave. When I see the food we are 
being served in the cafeteria it makes me feel like the government 
doesn't care about us and our health. Thank you for reading, and I hope 
this changes over time.
                        comment of sophia winter
    Date Submitted: Sunday, May 20, 2012, 12:20 p.m.
    City, State: Chico, CA
    Occupation: School.
    Comment: I personally would like to see healthy and fresh food 
being served in school lunches. I would also like the foods to be 
prepared at the school it's being served at. Instead of being cooked in 
a huge microwave with the plastic wrappers still on. I am twelve years 
old and I know what students want, and right now the food being 
prepared at my school isn't what students want. Thank you and please 
consider this.
                                 ______
                                 
                        Comment of Robert Child
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Greenwood, VA
    Occupation: Retired
    Comment: The public need to be represented over the desires of 
Agribusiness. Laws and regulation should not put an undue burden on the 
small producer as this can eliminate them from competing when they need 
to be encouraged.
    Rules regarding organic should not be weakened relative to GMOs or 
other amendments. While the organic standard is not friendly to the 
small producer, it needs to remain strong to protect the public.
                                 ______
                                 
                         Comment of Nat Childs
    Date Submitted: Saturday, May 19, 2012, 12:54 p.m.
    City, State: Miranda, CA
    Occupation: Retired
    Comment: I want to encourage support for organic agriculture. 
Please make sure the next farm bill does this! Do not include anything 
that dilutes organic standards!
                                 ______
                                 
                        Comment of Caroline Chin
    Date Submitted: Saturday, May 19, 2012, 2:02 a.m.
    City, State: Albany, CA
    Occupation: Business Manager
    Comment: I would like to see a Farm Bill that supports organic 
family farming instead of Big Agri Farming that produces untested 
genetically engineered food. The health of our children is 
deteriorating at an alarming rate. The bees are vanishing. Yet no one 
is willing to point to the chemical laden genetically engineered food 
as the culprit. It is time to stand up to the Big Biotech bullies and 
the label GMOs. It is time to demand that all genetically modified food 
be tested for safety and for its' nutritional value. We need to stop 
making junk food. Support organic family farming and real whole food in 
our schools.
                                 ______
                                 
                       Comment of Melissa Chiotis
    Date Submitted: Sunday, May 20, 2012, 7:48 a.m.
    City, State: New York, NY
    Occupation: Con Edison Planner
    Comment: There is nothing more important than getting back to our 
roots with food. We need to stop mass producing and genetically 
engineering food and get back to food that is healthy and natural. 
Organic food is currently too expensive for most working families and 
we need an organic farm bill to help make organic food more widespread 
and affordable.
                                 ______
                                 
                      Comment of William Chirinos
    Date Submitted: Saturday, May 19, 2012, 1:38 p.m.
    City, State: Hillsborough, NJ
    Occupation: Accountant
    Comment: Please stop the subsidies to big farms and to the cheap 
corn that makes all the junk food so cheap. Please also stop the 
attacks Monsanto does on small farmers that try to grow with their own 
seeds. Most importantly support organic farming and small farmers 
across America. I do not have the power these big farms and Monsanto 
has, that is why it's critical that you stand up for us.
            Respectfully,

William Chirinos.
                                 ______
                                 
                         Comment of Etsuyo Choi
    Date Submitted: Friday, May 18, 2012, 1:17 p.m.
    City, State: Chapel Hill, NC
    Occupation: Retired
    Comment:

    1. All farmers should be free to plant any seed from any source and 
        not be subject to coercion or lawsuits from Big Ag/Chem 
        companies like Monsanto as long as no contracts had been 
        signed.

    2. Preservation of non-GMO stock is essential, as they are tried 
        and true, whereas GMO products may cause undesirable effects in 
        the future, so we must always maintain safe, natural stock, 
        both in agriculture and animal husbandry.

    3. Organic farming should be expanded, as it returns waste matter 
        to the soil to enrich it naturally, maintains and improves 
        vitality of the soil and produces tastier and more nutritious 
        food. Any lapse in regulations which would impinge on organic 
        farming must be avoided.
                                 ______
                                 
                        Comment of Melody Chord
    Date Submitted: Friday, May 18, 2012, 9:26 p.m.
    City, State: Portland, OR
    Occupation: Media/Artist/Writer
    Comment: My health, as that of the children of America, depends on 
eating nonchemical foods. Help America make the change back to Healthy 
Eating. It saves on medical, and dental costs. Real people not 
corporations, is the appointed focus of your elected position. America 
is watching and hoping Congress will Do The Right Health Thing.
                                 ______
                                 
                       Comment of Evelyn Chorush
    Date Submitted: Friday, May 18, 2012, 3:28 p.m.
    City, State: Houston, TX
    Occupation: Retired
    Comment: Ever since Ronald Reagan the family farmer has been shoved 
aside by the Congress and President in favor of Big Ag--Big Ag is not 
interested in nutrition, apparently but in the bottom line.
    Why else would we have estrogen hormones injected into farm animals 
and antibiotics fed to farm animals?
    It's disgusting what factory farms do.
    It's also not healthy.
    I want a farm bill that protects farming methods that are proven 
for good human and animal health!
                                 ______
                                 
                      Comment of Karen Christensen
    Date Submitted: Saturday, May 19, 2012, 1:48 p.m.
    City, State: Argyle, NY
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 151-300 acres
    Comment: I agree with everything Food Democracy Now is advocating. 
My personal observation is that we clearly need a two-tier system. My 
small, grass-fed herd of beef is in no way like a large, commercial 
feedlot business. Time for that reality to be recognized. One size can 
not fit all.
            Respectfully,

Karen Christensen.
                                 ______
                                 
                    Comment of Margaret Christensen
    Date Submitted: Friday, May 18, 2012, 11:24 p.m.
    City, State: Dallas, TX
    Occupation: Physician
    Comment: When are you Jeb, going to wake up and understand that the 
health of our children and grandchildren is tied to the health of our 
land and the quality of our food? Is your wife not learning anything 
about pesticides, herbicides and Genetic modification and the effects 
on our children's hormones and immune systems that are being passed on 
from one generation to the next? Or are you so short sighted and your 
pockets so lined by corporate profiteering that you are willing to 
sacrifice even your own family's health? And I suppose you don't 
actually know any small local farmers whose land and incomes have been 
decimated by the handouts to Big Agra. Stand up and do the moral 
thing--how about actually acting like a Christian for a change?
                                 ______
                                 
                   Comment of Andrea Christian Parks
    Date Submitted: Friday, May 18, 2012, 8:09 p.m.
    City, State: Snellville, GA
    Occupation: Physician
    Comment: I do not support the industrial food supply that we have 
provided to the masses of consumers. Most do not know better options 
exist, and often government has been in the position of protecting big 
business instead of the consumer. Please support farm reform to assist 
smaller family owned farms and organic agriculture that will not only 
keep consumers healthier, but our Earth as well.
                                 ______
                                 
                      Comment of David Christopher
    Date Submitted: Tuesday, May 15, 2012, 5:57 p.m.
    City, State: Idalou, TX
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 301-500 acres
    Comment: I believe this bill should be passed as written. Would it 
save my business? Yes. Am I a capitalist? Yes. I just know when an 
Industry grows, and number of producers shrink, higher prices for 
consumers will be end result, producers are shrinking as we speak, 
(example) fuel prices will not get any cheaper.
                                 ______
                                 
                        Comment of Cynthia Chun
    Date Submitted: Sunday, May 20, 2012, 12:25 p.m.
    City, State: Honolulu, HI
    Occupation: Teacher
    Comment: support sustainable agriculture and do not support my tax 
dollars going to agribusiness. I vote accordingly. I ask that farm 
bills support healthy eating and stop the current practices.
                                 ______
                                 
                        Comment of Janet Church
    Date Submitted: Sunday, May 20, 2012, 10:24 p.m.
    City, State: Oshkosh, WI
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery
    Size: Less than 50 acres
    Comment: MI is very backward in many policies regarding organic 
agriculture but would probably follow a Federal lead. Giving priority 
to the chemical companies that are not only polluting the Earth, water 
and air but making this a nation on the verge of a health crisis due 
solely to the overuse and refusal to label frankenfoods, taking away 
the freedom and Right To Choose. The money blinds many to their false 
claims of being ``better than nature'' when in fact they require more 
chemicals to kill the superweeds and superbugs they create! They crush 
those who would simply ask for FAIR field trials. Buying up companies 
to bury facts they don't like is almost as despicable as suing farmers 
who do not want the crap contaminating their good crops, thus drive 
them out of competition. You Can Stop This So Do It!
                                 ______
                                 
                       Comments of Janice Church
    Date Submitted: Sunday, May 20, 2012, 7:21 a.m.
    City, State: Louisville, TN
    Occupation: Retired Software Executive
    Comment: Please especially give support to the organic farms and 
small family farmers who produce for local markets, The growing 
movement toward local farmer markets proves that people are ``fed up'' 
with obesity, cancer, heart disease caused by our ``calorie dense 
chemically altered nutritionally lacking food supply''. Please support 
any bills that further our health and welfare which is the opposite of 
the goals of the large food and chemical agribusiness. It may be as 
simple as if they are for it, please vote against. If they are against 
it, please vote for it.
    Thank you for considering ``doing the right thing'' for the health 
and welfare of our citizens, especially to improve the dire dietary and 
health issues we are handing to our children and grandchildren.

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
    Date Submitted: Sunday, May 20, 2012 7:33 a.m.
    Comment: There is nothing more important that improving the food 
supply in our country. The foods we and our children eat impacts our 
health care costs, the ability of our children to be physically 
competent, our adult and youngsters ability to learn, our environment, 
our deficit, our morality, our standing in the world's eyes. Please be 
upstanding and take the moral leadership position on this issue. Do not 
let the lobbyists from Monsanto, Tysons, Smithfield, Dow Chemical, 
DuPont continue to ``rule the roost'' at the USDA. Their job is to 
promote farm products. Your job includes protecting the health and 
welfare of the American people.
                                 ______
                                 
                       Comment of Rebecca Church
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: Saint Paul, MN
    Occupation: Graduate Student
    Comment: Agriculture is vital to our lives but it is controlled by 
a few large, multi-national corporations. These corporate interests 
have been able to engineer a farm policy that serves their interests, 
not the farmers', not the consumers', not the country's. It is time to 
stop letting them drive us off a cliff with unsustainable practices 
that endanger our health, the farmers' health, and the planet. Please 
rethink our agriculture policy to embrace sustainable, less harmful, 
more humane practices that will benefit all of us, even if some 
corporate bottom lines might suffer. It is for the greater good.
                                 ______
                                 
                        Comment of Joe Churchill
    Date Submitted: Friday, May 18, 2012, 12:57 p.m.
    City, State: Topanga, CA
    Occupation: Information Technology Worker
    Comment: I would like to see a complete ban on GMO products, 
especially crops destined for feed like soy, corn and alfalfa. I'm OK 
with GMO for industrial uses, but I would be concerned about the 
industry's ability to keep the two separated.
    I would also like to see programs that support integrated farming 
operations (like Polyface Farms/Joel Salatin) for small producers.
                                 ______
                                 
                        Comment of Jessica Chval
    Date Submitted: Friday, May 18, 2012, 1:55 p.m.
    City, State: Portland, OR
    Occupation: Cashier at a Nursery/Garden Center
    Comment: Organic research has ignited a passion in the American 
people, leading many to pursue organic and home grown produce with a 
new purpose and perspective. What we eat is The Most Important issue 
this country will face in the next 25 years. Steering away from 
conventionally grown, Genetically Modified foods which have been 
shipped long distances, will help us to decrease dependence on fossil 
fuels and in very significant ways, eating organic is proving to reduce 
our risk of cancer, diabetes, heart disease, strokes, depression, food 
allergies and food intolerances. Ultimately, reducing our incidence of 
disease saves the government much more down the road than you would 
save cutting the research budget right now, at the peak of so many 
interesting findings becoming public. I cannot trust a government that 
turns its back on the basic health and well-being of its citizens by 
cutting so much money from organic research. Please consider the larger 
impact of this decision, and its consequences for the next generations. 
Thank you for hearing my concerns, I look forward to reading your 
response.
                                 ______
                                 
                       Comment of Colette Cipullo
    Date Submitted: Saturday, May 19, 2012, 8:10 a.m.
    City, State: Gloucester, MA
    Occupation: Buyer/Manager & Therapist
    Comment: It is time to take responsibility! We as a nation, as a 
planet need to start at the root of the problem . . . we are what we 
eat! How much longer are we going to eat chemicals and pharmaceuticals 
in our food and then wonder why we are so ill? And dying? And beholden 
to the big drug companies (i.e., big business) . . . making them richer 
and us sicker? Speak for we little guys . . . and all the children 
growing up in this sick world! Do the right thing . . . no matter how 
difficult! Do the job you are elected to do . . . the right way . . . 
please?
                                 ______
                                 
                        Comment of Jane Cirlone
    Date Submitted: Friday, May 18, 2012, 7:57 p.m.
    City, State: Branford, CT
    Occupation: College Educator
    Comment: The disgusting foods that we have let flood the market is 
out of hand now. For the sake of our children, elderly, and citizens, 
we need to get back to good food, not factory farmed, animal cruelty 
food.
                                 ______
                                 
                        Comment of Bonnie Clancy
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: Sanibel, FL
    Occupation: Occupational Therapist
    Comment: Time for a change! Protect our food supply and the 
taxpayer, too! End farm subsidies to huge AgriBiz companies, promote 
small farms and organic growing, for Jobs and for Health! Encourage 
labeling of GM food products.
                                 ______
                                 
                      Comment of Bernadette Clark
    Date Submitted: Saturday, May 19, 2012, 9:20 p.m.
    City, State: Drexel Hill, PA
    Occupation: Account Representative
    Comment: A Fair Farming Bill should consider the smaller farmer who 
practices are sustainable, sane and reliable uses of land and natural 
resources Farming is a vital part of a thriving community and world for 
that matter. It is an urgent need for the farmers of this country and 
the world community to realize the importance of crops, feed and 
livestock to be free of pesticides, herbicides and other forms of 
mutated organisms. So, to this end I am in favor of an Organic Farm 
Bill supporting their rights and by the way my rights to eat organic 
foods.
                                 ______
                                 
                       Comment of Catherine Clark
    Date Submitted: Friday, May 18, 2012, 2:05 p.m.
    City, State: Chicago, IL
    Occupation: A./R. Clerk
    Comment: I no longer purchase factory food at all. They are out of 
touch with what consumers want and continue to water down organics to 
make more profit. So I refuse to purchase from them. We may be in the 
minority, but we are growing and we are tired of our ``legislators'' 
being bought by Big Ag, Big Biotech, etc. I garden and buy from trusted 
sources. No factory farmed vegetables or meats for us at all. I don't 
want Monsanto's crap--No GMO for me. Organics are the wave of the 
future, now it is time for politicians to get in touch with consumers, 
because most of you, from Both parties, are sadly out of touch. Support 
Small Family Organic Farmers. They Are And Have Always Been, The 
Backbone Of This Country. They will be there when the food system 
fails, as it surely will. I want foods with No antibiotics, hormones, 
pesticides, herbicides, GMO's, etc. Show Your support for consumers for 
once--and I speak not just to you, but to all our up-for-sale 
lawmakers. Start listening to U.S.
                                 ______
                                 
                         Comment of David Clark
    Date Submitted: Friday, May 18, 2012, 6:02 p.m.
    City, State: Lewisburg, PA
    Occupation: Retired
    Comment: Small farms are the back bone of the country, always has 
been. STOP making regs that stop people from growing their own foods, 
in this way you know what you are feeding your family and do Not have 
to worry about the wrong things in your food!
                                 ______
                                 
                         Comment of Kevin Clark
    Date Submitted: Friday, May 18, 2012, 1:10 p.m.
    City, State: Los Angeles, CA
    Occupation: Student
    Comment: I have been having a hard time finding good and fresh 
produce at my local super market in my neighborhood. Please Help us get 
more community farmers markets in the area so that I can eat healthy, 
stay active, and do well in my studies. Health is the most important 
attribute to a productive person.
                                 ______
                                 
                        Comment of Maxine Clark
    Date Submitted: Saturday, May 19, 2012, 12:20 p.m.
    City, State: Carmichael, CA
    Occupation: Food Issues Activist
    Comment: We desperately need a government that supports real food 
for its citizens--not the corn and soy we subsidize which is then 
turned into corporate food-like substances that give us no nutrition 
and make us fat! The ``food'' we subsidize is the very stuff that puts 
us into the health care system.
                                 ______
                                 
                        Comment of Pamela Clark
    Date Submitted: Wednesday, May 09, 2012, 4:34 p.m.
    City, State: Albuquerque, NM
    Occupation: Retired
    Comment: Every time, like now, I cry when I even think about anyone 
in our USA who is experiencing any food insecurity! Our agriculture 
needs to be sound to be able to help all of our human beings in our 
country!
                                 ______
                                 
                         Comment of Sheri Clark
    Date Submitted: Friday, May 18, 2012, 3:19 p.m.
    City, State: Laguna Woods, CA
    Occupation: Literacy Volunteer
    Comment: As a consumer of food grown locally and organically, I am 
concerned that big agricultural businesses are not allowed to take over 
what food I do and don't eat. I want my local farmers to be given 
subsidies, and I want them to be allowed to continue without 
interference from the government or big business interests. I have a 
chronic illness, and it is important for me not to eat pesticides, GMO 
produced foods, antibiotics and growth hormone fed dairy products. 
Please protect my freedom as an American who pays taxes and respects 
the laws of our land.
                                 ______
                                 
                        Comment of Thomas Clark
    Date Submitted: Friday, May 18, 2012, 4:27 p.m.
    City, State: Little Egg Harbor, NJ
    Occupation: U.S. Army (Retired)
    Comment: It is way past the point where our government should stop 
selling out the taxpayer and the farm owner to agribusiness. I urge you 
to support family farms, and place the interests of family farmers 
ahead of any corporate farm interests, as you structure the nation's 
farm bills.
                                 ______
                                 
                          Comment of Tom Clark
    Date Submitted: Friday, May 18, 2012, 11:50 a.m.
    City, State: Evanston, IL
    Occupation: Retired Financial Broker
    Comment: Support organic farming and sustainable farming. End 
subsidies and limit funds to CAFOs and protect CSP. Support local 
organic food production.
                                 ______
                                 
                        Comment of David Clarke
    Date Submitted: Friday, May 18, 2012, 6:43 p.m.
    City, State: San Diego, CA
    Occupation: Landscape Designer
    Comment: I strongly urge our Representatives to consider 
strengthening incentives for organic agriculture. It is much less 
harmful to the environment, is safer, and tastes better! We, as a 
country, should be world leaders in organic, sustainable food.
                                 ______
                                 
                         Comment of Jen Clarke
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: Navarre, FL
    Occupation: Teacher
    Comment: I am just a regular consumer that is extremely concerned 
about where my food comes from. I spend my dollars responsibly and 
locally on farm-fresh produce as much as possible. I am very healthy 
and want to keep it that way by staying away from industrial 
agriculture. This is my choice for my family and I deserve to be able 
to make it without interference from lobbyists or government. Farmers 
in this country deserve a chance to make a living while providing 
fresh, healthy food to their communities.
    I Strongly Support the Local Foods, Farms and Jobs Act and the 
Beginning Farmer and Rancher Opportunity Act. Put the money and effort 
where it works best--not in the pockets of big business and lobbyists--
with those that care about the environment and growing the best food.
                                 ______
                                 
                        Comment of Marcia Clarke
    Date Submitted: Saturday, May 19, 2012, 2:40 a.m.
    City, State: Bothell, WA
    Occupation: Semi-Retired, Organic Gardener
    Comment: We need to support and increase our sustainable 
agriculture land before it is too late and it gets destroyed by 
Monsanto's GMO's and pesticides. This would assure that future 
generations will be nourished with healthy grains, fruits and 
vegetables. It would also keep our water pure.
                                 ______
                                 
                       Comment of Lisa Clark-Kahn
    Date Submitted: Saturday, May 19, 2012, 8:39 p.m.
    City, State: Stony Point, NY
    Occupation: Vet Tech
    Comment: Please let's start supporting small farmers that grow 
fruits and veggies. Enough is enough already with supporting cruel 
unhealthy and environmentally immoral factory farms. We all live just 
once, let's get this started, for humans, animals and our environment. 
Thank you.
                                 ______
                                 
                        Comment of Katelyn Clary
    Date Submitted: Friday, May 18, 2012, 11:48 a.m.
    City, State: New York, NY
    Occupation: Finance
    Comment: It's no secret that most of America's obesity and health 
problems come from the ``food'' that we are now eating. We need to 
support locally grown, organic foods that strengthen and support the 
body, not the over processed junk we have on supermarket shelves. 
Please help make this happen to keep our future generations safe.
                                 ______
                                 
                         Comment of Wanda Clary
    Date Submitted: Friday, May 18, 2012, 8:11 p.m.
    City, State: Springfield, OH
    Occupation: Healthcare
    Comment: I don't want to live in a country where the government 
cannot even think for themselves and use just plain old common sense. 
For so long now the voices of the people have not been heard, and even 
when government hears they still do what the big guys want. There will 
come a day where many in government will have to face what they have 
done to the food, land, farmers, children, and to those of us who 
really care about our country and food supply. So before it is too late 
and you have many more regrets to deal with, let's make this farm bill 
the best one you have ever put in place. Let's work together as a 
people.
                                 ______
                                 
                         Comment of Grace Claus
    Date Submitted: Saturday, May 19, 2012, 7:57 a.m.
    City, State: Holland, MI
    Occupation: Graduate Student
    Comment: I am disturbed by the direction that congress continues to 
take regarding the farm bill. I, along with many of my fellow graduate 
students, ask that you support the full endorsement of all provisions 
of the Local Foods, Farms and Jobs Act (H.R. 3286); the full funding of 
conservation programs (such as the Conservation Stewardship Program), 
making sure that enrollment in any new insurance subsidies are tied 
directly to compliance with conservation programs; the implementation 
of all provisions of the Beginning Farmer and Rancher Opportunity Act 
(H.R. 3236); and the maintenance of the EQIP Organic Initiative.
    I hope that by the time my husband and I have children, we will be 
able to count on the state of agriculture and food in America and know 
that our children will enter a world where they can trust their food 
and their farmers.
            Thank you,

Grace Claus
                                 ______
                                 
                      Comment of Julia Ruth Claus
    Date Submitted: Friday, May 18, 2012, 10:10 p.m.
    City, State: Taos, NM
    Occupation: Licensed Massage Therapist/Artist
    Comment: Dear House Committee on Agriculture,

    I am appalled at our Legislature's disregard of the importance of 
clean agriculture and clean, wholesome food for all resulting in 
replenished agricultural lands that will continue to produce and 
nourish.
    As a constituent, I strongly recommend that you consider the people 
of this country rather than the agribusiness corporations when making 
your decisions.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you for considering my health and that of the future 
generations.

Julia Ruth Claus.
                                 ______
                                 
                        Comment of Suzan Clausen
    Date Submitted: Friday, March 16, 2012, 12:36 p.m.
    City, State: San Diego, CA
    Occupation: Retired Teacher
    Comment: Food, water and shelter are basic requirements for life.
    The people who provide others with food are performing a valuable 
service, but please, never forget that that service should meet the 
highest nutritional and ethical standards.
    Nutritional requirements need to protect the consumer from harmful 
chemicals and untested GMO products. The very Least protection 
nutritionally would be to label foods that are grown with harmful 
chemicals and genetic modification so the consumer can make an informed 
decision about what to put into his own body.
    Ethical requirements of food production should mirror the oath of 
medical practitioners: ``First, do no harm.'' Eating high quality food 
is preventative medicine. Every food producer should be held to that 
requirement. Think of the savings in terms of medical costs to this 
country and the enormous boon to the quality of human life if food were 
thought of as preventative medicine and treated as such.
    Small family farmers tend to use more traditional farming practices 
with fewer chemicals and GMO products. Those who use these safe 
practices should be rewarded by the government with tax incentives and 
other help, regardless of the size of their operation. Large corporate 
farms who use harmful chemicals and GMO seeds should receive no special 
treatment from the government, certainly no subsidies, and, in all 
fairness to the consumer, should be penalized for those practices.
    Please act in the best interests of the citizens whom you were 
elected to serve. The wishes of large donors to your campaigns should 
receive no bigger consideration than the small child with no voice 
other than your own.
                                 ______
                                 
                        Comment of Gretchen Clay
    Date Submitted: Sunday, May 20, 2012, 10:42 p.m.
    City, State: Bellingham, WA
    Occupation: School District Employee
    Comment: Funding would cut nutrition programs, conservation, and 
support for organic and sustainable agriculture, but would boost 
entitlement programs for agribusinesses. More of the same, stealing 
from the poor to give to the rich. Why do successful businesses need 
help from the government, I thought they were against entitlement 
programs? I'm proud my family supports small family farms in our area, 
and you should too. They are the real backbone of our country.
                                 ______
                                 
                         Comment of Laura Clay
    Date Submitted: Saturday, May 19, 2012, 11:18 a.m.
    City, State: Bradenton, FL
    Occupation: Retired
    Comment: Good Morning. I wanted to send an e-mail to you regarding:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    These and non-GMO foods are a high priority in my life, and they 
should be in yours, too. Nutrition and health are dying in our country. 
The national obesity rate is skyrocketing. We Need nutrition 
information and access to Healthy food that isn't full of pesticides 
and DNA that God didn't put there. Messing with our food system is a 
Huge mistake. Please make the right decision . . . don't side with the 
big money, but make the moral decision. We are killing our planet, our 
children and our future.
                                 ______
                                 
                      Comment of Stephenie Clement
    Date Submitted: Friday, May 18, 2012, 7:50 p.m.
    City, State: Middletown, RI
    Occupation: Retail Garden Shop Sales
    Comment: We need to support farmers to grow organic Fruits and 
vegetables for the Health of our people. I don't want to eat produce 
prayed with chemicals that add toxins to my body and can cause cancer!
                                 ______
                                 
                       Comment of Valerie Clement
    Date Submitted: Friday, May 18, 2012, 2:36 p.m.
    City, State: Albuquerque, NM
    Occupation: Small Business Owner--Training and Organizational 
Development
    Comment: Dear House Agriculture Committee,

    It is your duty to represent U.S. citizens, not agribusiness 
interests. Future farm policy needs to reflect the public's concerns 
regarding GMOs, maltreatment of farm animals, and toxic chemicals used 
in agriculture that impacts the foods we eat and the groundwater we 
drink. I also believe that our government should support family owned 
farms and stop subsidizing agribusiness.
    Thank you for updating farm policy to reflect current times. The 
health of all of us is at stake.
                                 ______
                                 
                        Comment of Wade Clement
    Date Submitted: Friday, May 18, 2012, 8:03 p.m.
    City, State: Florence, MA
    Occupation: Builder
    Comment: As a consumer of food and understanding that we are what 
we eat I am appalled by the takeover of the food system by gigantic 
profit first corporations that clearly care more about control of food 
production and distribution than nutrition. It is time to reinvigorate 
small farming to preserve the healthy food that they painstakingly 
produce. I say no more subsidies for large corporate farms.
                                 ______
                                 
                      Comment of Charles Clements
    Date Submitted: Wednesday, April 11, 2012, 11:17 a.m.
    City, State: Las Cruces, NM
    Occupation: Retired
    Comment: After working for 49 years I retired. During that period I 
saw an almost continuous deterioration in the economic condition of the 
regular working American. This was due to nearly continuous warfare and 
subsidizing large corporation executives. Now it is very hard to secure 
work at a wage that will provide the necessities. There is no excuse 
for not properly funding our social safety net programs to take care of 
people who've been damaged by our calloused political activity. This 
food program needs to be funded properly and you can take the money 
from the perpetual war spending.
                                 ______
                                 
                        Comment of Teddy Clemons
    Date Submitted: Thursday, March 22, 2012, 3:26 p.m.
    City, State: Fort Smith, AR
    Occupation: Director of River Valley Regional Food Bank
    Comment: I would like to put my thoughts into this battle over the 
farm bill as a director for the River Valley Regional Food Bank in Fort 
Smith Arkansas I can tell you this bill is at the front of our 
concerns. I understand that we must make cuts but this area must stay 
untouched. This will affect the basic needs (Food) of many in our 
community and across this country. Here at the food bank we receive 
donation all the time but most of these donations are snacks and food 
with little nutritional value as you know the TEFAP products are very 
nutritional and first run product. If we take these products away from 
those in need I can tell you the food banks across this country will 
not be able to fill this gap with nutritional food or at least the 
magnitude that the TEFAP program does. I know you have probably heard 
it a thousand times what kind effect this will have on those in need 
but you also must realize that this will play a big role in health care 
and education in our communities. Health care is obvious, without this 
nutritional food Adults, Children and our Seniors will be without the 
nutrients they need to live a healthy lifestyle which in return will 
result in more health problems which in return will stress our 
government health care programs. Education is also as important it has 
been proven that if a child doesn't get the nutritional food they need 
that it will cause learning problems which in return will put stress on 
our schools and eventually lead to poor grades or even worse increase 
the number of drop outs. I really believe that cuts in this program 
will have devastating effects on our communities. I ask that you please 
stand behind the farm bill and remember your neighbors and friends in 
our communities when making your decisions. Please step back today and 
step in these folks shoes for just a minute and feel the pain they will 
be in. Thank you for your time and have a wonderful day.
                                 ______
                                 
                        Comment of Donna Climer
    Date Submitted: Wednesday, May 09, 2012, 6:06 p.m.
    City, State: Mansfield, MO
    Occupation: Retired--Volunteer at Food Pantry
    Comment: As a volunteer who oversees paperwork for our local food 
pantry I have direct knowledge of the plight of our Senior Citizens as 
well as being a Senior Citizen myself. Probably \1/3\ of our Seniors 
will not apply for Food Stamps because of the stigma attached to 
`welfare'. However, they would accept the Senior Box but our pantry 
does not receive this program. Of the Seniors who receive Food Stamps 
only receive $16 to $20 worth. Barely enough for bread and milk. If You 
Are Interested In Helping Senior Citizens, more benefits are what is 
needed and make the process to get them more user friendly.
    We have families of 2-4 members all 19-59 age group who receive 
$150-$200 or better each month in Food Stamps. These people are able to 
do some kind of work but do not and live on the system entirely.
    Please think long and hard and perhaps say some prayers before you 
cut these programs out. Maybe you need to change how you figure what 
the Seniors will receive instead of dropping them from the rolls. When 
they receive $600-$800 per month Social Security and must pay rent, 
utilities, and medicine bills from this where can they find money for 
food. If they are fortunate enough to own a car they cannot afford 
insurance, license, taxes, or gasoline for it.
    You want to help Seniors (and the unemployed--need jobs), look at 
what they receive and how they suffer in silence when they cannot 
afford the things they really need.
    This tirade is from conversations with our Senior Citizens who come 
into pantry, unemployed who want to work but cannot find work, and from 
personal experience.
    Thank you for listening.

Donna.
                                 ______
                                 
                       Comment of Allison Clough
    Date Submitted: Friday, May 18, 2012, 6:46 p.m.
    City, State: Flagstaff, AZ
    Occupation: Physician
    Comment: Small local farms are a critical component to food 
security: it would be easy for terrorists to interrupt or to 
contaminate centralized food production. Furthermore, it is critical to 
get our food off its hydrocarbon diet: pesticides are increasingly 
implicated in health problems, and, although because of subsidies 
industrially produced food is cheaper at the moment, it is 
unsustainable. We need to protect and preserve the soil in which our 
food grows: agribusiness turns soil into a chemical soup in which 
necessary, self replenishing microorganisms cannot grow.
                                 ______
                                 
                        Comment of Carter Clough
    Date Submitted: Friday, May 18, 2012, 3:19 p.m.
    City, State: Mission, KS
    Occupation: Industrial Designer/Builder
    Comment: Just did an interesting search about Bates County Missouri 
where my brother and his partner run the 5 Star Cattle LLC. They farm 
1050 acres of corn and soybeans. Turns out 10% of farms in Bates County 
reaped over 70% of available funds amounting to $80.3 million over 16 
years. Is this what congress had in mind when consistently voting for 
farm subsidies? That's just one county in one state. The farm bill 
needs (demands) a much better balance for ALL producers large AND 
small. Personally, I don't understand the need to subsidize large and 
extremely profitable companies that call themselves farmers. I ask for 
your support for H.R. 3286 and H.R. 3236 as well as maintain the EQIP 
Organic Initiative as I'm a firm believer in the grass roots focus of 
food safety, strong nutrition and sustainable farm practices. Why make 
it harder for the new upstarts in this nascent food revolution while at 
the same time making it easier for the production/factory farms? I pray 
for the day when you and all congressmen and women have your come to 
Jesus moment and realize that you represent all your constituents and 
not just the ones who can afford lobbyists.
            Thanks for your time,

Carter Clough.
                                 ______
                                 
                         Comment of Amy Clowers
    Date Submitted: Friday, May 11, 2012, 4:12 p.m.
    City, State: Luther, OK
    Comment: It is my concern as I am a small producer that in the 
future we will be held to the same standards as large producers. This 
would be devastating to small farms and to our community as a whole. 
There is already far too much regulation on agriculture.
                                 ______
                                 
                        Comment of Connie Cloyed
    Date Submitted: Friday, May 18, 2012, 1:59 p.m.
    City, State: Portland, OR
    Occupation: Aesthetician
    Comment: I would like to see the U.S. support family farmers rather 
than corporate farms. I would like to see the U.S. encourage heritage 
seed & livestock expansion over Monsanto seed control & industrial 
livestock production. I would like to see raw milk legalized, organic 
food sources protected & farmers paid what their crop is actually 
worth. I would like to see our agriculture industry lessen its 
dependence on petroleum based & chemical inputs & school lunch programs 
nurtured by organic & local foods.
                                 ______
                                 
                         Comment of Dianne Cobb
    Date Submitted: Friday, May 18, 2012, 1:23 p.m.
    City, State: Woodstock, GA
    Occupation: Registered Nurse
    Comment: As a cancer survivor, it is important to me & my family to 
be able to purchase organically grown (i.e., chemical-free) foods. (We 
try to grow a few tomatoes @ our home each summer). There needs to be 
more control (or total absence) over harmful chemicals & additives in 
our foods such as the flavor enhancer, MSG. If food is grown 
organically, it has flavor & does not need MSG. It is one of the main 
reasons for the U.S. rampant obesity. It is an ``excitotoxin'' & sends 
a message to the brain to eat more (even though folks are full). Aren't 
the growth hormones given baby chickens which most people eat causing 
our children to become developed before their biological time? Chemical 
companies have developed Bovine Growth Hormone & dairy farmers have 
been suckered into having ``cows produce more milk'', thus more $ for 
the farmer. No one mentions the cows will probably have a shorter life 
w/ BGH. Thus we have even more hormones &/or preservatives for the 
general public. Let's get back to nature w less chemicals & hormones & 
have a healthier America! Think about it: Do any of us really have a 
deficiency of chemicals & hormones so that these things are really 
necessary to maintain health?
                                 ______
                                 
                        Comment of Andrew Cobine
    Date Submitted: Saturday, May 19, 2012, 12:55 p.m.
    City, State: Bloomington, IN
    Occupation: House Painter
    Comment: Fund organic and sustainable garden and farming practices, 
and please redirect funds that go to major GMO producing companies like 
Monsanto, to more smaller sustainable garden and farming organizations 
and individuals in your district, and tell your fellow representatives 
to do the same where ever they are in the country and no matter who is 
giving them to much money for there ``representation''! Thank you, for 
doing the right thing for yourself, the people and the future of your 
children and mine and the planet!
                                 ______
                                 
                       Comment of Brenda Cochran
    Date Submitted: Sunday, May 20, 2012, 11:50 p.m.
    City, State: Westfield, PA
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 500-999 acres
    Comment: Concerning Dairy Farmer' Needs in the New Farm Bill

May 20, 2012

    I attended the House Agriculture Committee Hearing in Saranac Lake, 
NY, in March 2012, and heard the testimony from the three dairy farmers 
who were chosen to speak. All three dairy farmers voiced support for 
the Dairy Security Act, (DSA), which I strongly oppose. There was an 
obvious presumption at the hearing that just because National Milk 
Producers Federation (NMPF) supports Representative Collin Peterson's 
DSA, a derivative of its Foundation for the Future, and because NMPF 
claims membership from the huge dairy cooperatives that it, therefore, 
can speak for the majority of American dairy farmers, many of whom have 
no choice but to ship their milk through those cooperatives or their 
umbrella associations, captive in their marketing options by the 
unchecked consolidation that has overtaken the dairy ``industry'' since 
the rule of ``free trade'' has arrived in the U.S.
    NMPF does not speak for me.
    I am submitting these comments to the House Agriculture Committee 
for inclusion in the official record of its proceedings as the 
Committee considers changes in Federal dairy policy that will directly 
impact dairy farmers including my family.
    My husband and I have been dairy farming with our children since 
1975. We know what it is like to be paid a fair raw milk price because 
we received reasonable raw milk prices up until the parity pricing 
system was altered in 1981. The change in parity pricing ushered in 31 
years of Federal dairy policies that have effectively destroyed the 
balanced and profitable dairy farms that were the backbone of America's 
dairy farming communities all across the country.
    My family and I have been victims of these irresponsible and 
unconscionable government policies that destabilized hundreds of 
thousands of dairy farming families like ours, driving them into 
insolvency and forcing them out of business. We ourselves have suffered 
huge financial setbacks making it virtually impossible to run our dairy 
farm business with proper inputs and investments simply because the 
Federal government, by policy and law, gutted the original directive of 
the 1937 Agricultural Marketing Agreement Act (AMAA) provision 608(c) 
18 that requires the Secretary of Agriculture to factor the dairy 
farmers' costs in the Federal minimum milk price.
    Passage of Federal ``Order Reform'' in 2000, based farmers' milk 
checks on Chicago Mercantile Exchange (CME) ``activities'' that are 
notoriously flawed and unscrupulous by design, geared as they are to 
take advantage of dairy farmers at the capricious whim of the 
``traders.'' The government, at all levels, with the assistance of the 
dairy cooperatives' block voting, slam-dunked ``Order Reform'' in an 
abominable scheme to ``globalize'' the value of dairy farmers' milk, at 
the same time doing nothing about the flood of imports rushing into 
this country, particularly the untested for human consumption, 
industrialized glue ``ingredient,'' milk protein concentrate (MPC) that 
is used with impunity in cheese and dairy products and thousands of 
other food items that used to use ``real'' milk, cream, and milk 
powder.
    MPC displaces real milk in the dairy and food items that 
unsuspecting consumers buy without fully understanding how 
``innovation'' has replaced traditional dairy ingredients in the dairy 
case, at the same time, skewing domestic milk production.
    The subsequent losses from 31 years of devalued raw milk prices hit 
not only the dairy farmers themselves but also countless independent 
support businesses from the ensuing loss of the dairy communities' 
economic base. These were the people who provided local supplies and 
technical support that benefited the farmers in managing and operating 
their dairy farms. They also provided this country with some of the 
creative skills that gave America its reputation as an agricultural 
powerhouse.
    At the same time, consumers were the beneficiaries of fresh, local 
milk and dairy products, which was an intended goal of the Federal 
order system.
    The propaganda that pushed ``get bigger or get out'' and ``get more 
efficient'' originated off the farms from outside the farming 
communities and was directed at dairy farmers to implement the model of 
dairy farming represented by the controversial Flanagan Report released 
during the Nixon Administration, a plan that represents the ``free 
trade'' model of dairy policy that is afflicting American dairy farmers 
to this day.
    All administrations since 1981 have embraced and advanced the same 
``free trade'' agenda that has consistently and predictably brought low 
farm milk prices in a ``race to the bottom'' that, for dairy farmers, 
ends at ``world'' milk prices. ``World'' milk prices will not sustain 
dairy farms of any size in any region of the U.S. The dairy farmers' 
real cost to produce the raw milk must be included in what the farmer 
is paid for his cows' milk.
    The Dairy Industry Advisory Committee (DIAC) report is readily 
available for anyone who may want to read it. Some clarity is evident 
regarding certain concerns that underscore the inequities facing dairy 
farmers in the present system, but past history makes it easy to 
believe that the presumption of lowball raw milk prices is operative in 
that document. It is a reasonable assumption that Congress will look to 
the DIAC report and pass a farm bill dairy provision to validate the 
``findings'' that continue the same ``global'' ``free trade'' dairy 
polices that have already failed our dairy farmers, their families, 
their support businesses, the broader dairy farming communities, and 
consumers, all across the U.S.
    The constant blather from all the ``experts'' in the dairy 
``industry'' that their much touted ``free trade'' dairy model--with 
its attendant devalued raw milk prices and its never-ending mantra 
about the alleged glories of dairy ``exports''--is somehow in the best 
interests of dairy farmers and consumers, in reality, is flagrant, 
self-serving propaganda that perpetuates the current farmer-abusing 
economic practices, and that misrepresentation must change.
    The ``free trade'' model has so devalued farm milk prices that the 
dairy ``industry'' shamelessly tapped the taxpayers for ``MILC'' 
payments implemented to pay farmers when milk prices were crashed at 
the CME.
    It is long overdue for dairy farmers to be treated as a unique 
class of people whose activities are separate and distinct from the 
``dairy industry.'' The functions, inputs, costs, and challenges facing 
dairy farmers are not the same as those of ``the industry.'' Dairy 
farmers engage in natural, agrarian activities unique to the husbandry 
of cattle and the tilling of the soil to raise crops. We work with 
livestock, seeds, and the Earth's natural cycles to produce the milk we 
sell to the raw milk buyers: processors. The dairy farmer's 
functionality has significant value that is inherently present on the 
farm before one drop of raw milk is ever shipped off the farm.
    Processors need to finally stand on their own financial feet to 
solve their own problems without constantly exerting unfair influence 
over Federal dairy polices that put all their economic burdens on dairy 
farmers, who appear to fit the description of the new serfs, enslaved 
to the whims of the dairy ``industry's'' processing sector.
    The dairy processors have everyone, including politicians and 
farmers, talking only about them and their ``needs,'' most of which 
they deftly peg onto farmers, saddling us with their costs including 
their processing ``make allowances,'' which give them their ``cost of 
production'' at the dairy farmers' expense; the hauling fees with 
frequent ``fuel surcharges,'' which insane practice puts the cost to 
transport raw milk onto the farmers by allowing the ``industry'' to 
wheel milk to any destination that suits the processor-buyer on a 
hither and thither cycle that wastes expensive energy; the advertising 
and research fees, and so on. The processors must cover their own costs 
independently of dairy farmers.
    The new farm bill should liberate dairy farmers from being the 
dairy ``industry's'' cash cow. This farm bill can be the means by which 
the dairy farmer citizen is once again allowed to operate his dairy 
farm as all other businesses are by being able to cover his cost to 
produce the milk.
    ``The Federal Milk Marketing Improvement Act'' (S. 1640) will 
rectify the current injustice brought in by ``Order Reform'' by 
including the dairy farmers' national average cost of production as 
determined by the Economic Research Service (ERS) in the Federal 
minimum pricing formula. It includes a program to control oversupply of 
milk that is transparent and controlled by the dairy farmers 
themselves. Unlike DSA, this provision will not cost the taxpayers any 
additional funds to administer, and S. 1640 monitors imports and 
exports.
    In view of all the consolidation and mergers among dairy 
cooperatives, the Capper-Volstead cooperatives need to be investigated 
by Federal authorities to assure all of us that they are being properly 
administered, fulfilling the intent of the original legislation that 
gave dairy farmers this exceptional tool to assist them in marketing 
their milk, in association with other farmers, by setting a reasonable 
milk price that is not ``unduly enhanced,'' which the processors would 
then pay to procure the milk.
    If there is no desire to correct the current pricing inequities 
facing farmers, then dairy farmers must be granted the legal authority 
to price their own raw milk by directly billing the dairy processors 
for the milk they purchased at the farm.
    Deputy Administrator of Dairy Programs at USDA's Economic Research 
Service (ERS) Dana Coale's report to the House Agriculture committee on 
September 8, 2011, should cause dairy farmers everywhere to ask if, in 
fact, as Ms. Coale declares: ``The economic vitality and quality of 
life in rural America, as well as the U.S. economy at large, depend on 
a competitive, efficient, and productive agricultural system. To 
increase prosperity and sustainability in our Nation's agricultural 
system and rural communities, a.m.S conducts oversight activities to 
protect producers from unfair business practices,'' then when will the 
appropriate ``oversight'' be provided by the Federal authorities to 
finally administer the justice dairy farmers have been awaiting for 
over 31 years by fully investigating and executing necessary remedy 
from the myriad of `. . . unfair business practices . . .' rampant 
throughout the `dairy industry?' ''
                                 ______
                                 
                        Comment of Dasha Cochran
    Date Submitted: Friday, May 18, 2012, 1:38 p.m.
    City, State: Dallas, TX
    Occupation: Social Scientist
    Comment: I would like to see more subsidies go to vegetable growers 
(other than corn). Vegetables are the healthiest food on Earth, yet 
many people are not able to afford fresh vegetables. So much of 
taxpayers' dollars go to wheat, soy and corn, all of which have been 
liked to obesity and diabetes. Please, help to stop this epidemic for 
the sake of our children by providing them with low cost high quality 
local vegetables, grown by real farmers, not giant corporations. Thank 
you!
                                 ______
                                 
                        Comment of Joyce Cochran
    Date Submitted: Sunday, May 20, 2012, 2:20 a.m.
    City, State: Beaver, OR
    Occupation: Clinical Social Worker/Semi-Retired; Minister
    Comment: We need a farm policy that supports small farmers and 
community-based agriculture, not big business. We need safer food 
standards, no GMOs, and fewer subsidies for the meat and dairy 
industries--give that money back to the people who grow organically and 
sustainably!
                                 ______
                                 
                        Comment of Meg Cochrane
    Date Submitted: Friday, May 18, 2012, 10:43 p.m.
    City, State: Duvall, WA
    Occupation: Library Assistant
    Comment: It is time to stop the large Agribusinesses dominating the 
food politics of this country. Your constituents want healthy organic 
food grown on clean and thriving land without chemical fertilizers and 
pesticides that deplete the soil and the nature in and around it. 
Please support the small farmers who endeavor to grow our food and 
protect our farmland.
                                 ______
                                 
                    Comment of Joyce Marie Cockerha
    Date Submitted: Thursday, May 17, 2012, 12:17 p.m.
    City, State: Troy, NY
    Occupation: Musician
    Comment: Do not give any money to factory farms or to any programs 
that would benefit Dow, Eli Lilly, Koch Industries, or Monsanto. 
Instead, fund the Value-Added Producer Grants Program, the Conservation 
Stewardship Program, the Beginning Farmer and Rancher Development 
Program, and the Organic Agriculture Research and Extension Initiative.
    Thank you!
                                 ______
                                 
                       Comment of Connie Cockrell
    Date Submitted: Sunday, May 20, 2012, 10:35 a.m.
    City, State: Payson, AZ
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: It's just beyond belief that giant agribiz controls our 
food, patents our seeds, sues innocent farmers when the agribiz lets 
thier genetically modified seeds contaminate surrounding farms. These 
are businesses, concerned only with making a profit and damn be all to 
the rest of us. We need reform NOW!
                                 ______
                                 
                       Comment of R. Ray Coffman
    Date Submitted: Friday, May 18, 2012, 6:38 p.m.
    City, State: Morrison, CO
    Occupation: Handyman
    Comment: We need to put health ahead of big AG making more money on 
(junk) non-organic foods. We need some law and help to increase the 
production of organic foods.
    Thank you very much,

Ray.
                                 ______
                                 
                      Comment of Bryna Cofrin-Shaw
    Date Submitted: Wednesday, May 02, 2012, 4:49 p.m.
    City, State: Amherst, MA
    Occupation: Student
    Comment: To whom it may concern,

    As a citizen of MA and student of agriculture and environmental 
science, I would like to encourage my legislators to continue and 
expand cuts to direct payments. Direct payments are not beneficial to 
the dedicated farmers of this country, and instead provide too many 
loopholes for agribusiness interests to profit unfairly form these 
payments. The unnecessary subsidies provided by the farm bill are not 
healthy components for American agriculture, and will prevent our 
country from creating a national agricultural system that provides 
healthy, affordable, and accessible food to all persons. I urge you to 
continue adequately funding the McGovern-Dole International Food for 
Education and Child Nutrition Program, as this is a critical means by 
which the many hungry people in this country can be adequately fed in 
these difficult economic times.
            Thank you,

Bryna Cofrin-Shaw.
                                 ______
                                 
                         Comment of Elana Cohen
    Date Submitted: Friday, May 18, 2012, 9:00 p.m.
    City, State: Longmeadow, MA
    Occupation: Teacher
    Comment: Please think of how we are treating the very commodities 
that nourish us and the legacy we are leaving for our children and 
grandchildren. Would you want to work amongst and then consume known 
carcinogens? I thank you for your considerations and your promise to 
sustain that which is truly healthy! With appreciation.
                                 ______
                                 
                        Comment of Howard Cohen
    Date Submitted: Wednesday, May 09, 2012, 2:29 p.m.
    City, State: Palo Alto, CA
    Occupation: Consultant
    Comment: I urge you to pass a strong farm bill that protects 
programs like SNAP, TEFAP, and CSFP, which help provide food for 
millions of America's most vulnerable seniors. I urge you to pass a 
farm bill that requires labeling of all GMO foods, discourages GMO 
foods, limits agricultural subsidies (to promote small and organic 
farmers as opposed to lethal mega agribusinesses), and promotes 
conservation and alternative energies, as well as discontinues biofuel 
production, which both depletes food stocks and costs more energy than 
it produces.
                                 ______
                                 
                        Comment of Louisa Cohen
    Date Submitted: Friday, May 18, 2012, 7:25 p.m.
    City, State: Las Vegas, NV
    Occupation: Academic Counselor
    Comment: As a mother and conscientious consumer, I strive to feed 
my family with as much certified organic, non-GMO food as I can find. 
While on the one hand organic food is becoming much easier to find and 
more affordable, on the other hand it seems to be coming increasingly 
under attack, as funding for organic farmers is cut and companies like 
Monsanto sue organic farmers for ``stealing'' their patented seeds when 
wind blows pollen into organic fields, contaminating their organic 
crops and threatening their organic certification!
    I urge you to support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you for your consideration.
                                 ______
                                 
                         Comment of Meghan Coil
    Date Submitted: Friday, May 18, 2012, 7:02 p.m.
    City, State: Portland, OR
    Occupation: Customer Service, Musician
    Comment: Corporate agriculture is not sustainable. The sooner we 
move back to sustainable practices, the healthier we will be as 
individuals and as a country. Please help to stop stacking the deck in 
favor of irresponsible, extractive practices so that small ecological 
farms can compete and survive. It is in the best interest of everyone 
who eats. Thank you.
                                 ______
                                 
                      Comment of Dragan Colakovic
    Date Submitted: Friday, May 18, 2012, 10:57 a.m.
    City, State: Minneapolis, MN
    Occupation: Sr. Business Analyst
    Comment: Please stop wheat and corn subsidies along with mono 
culture farming and focus on sustainable farming. Food produced this 
way is simply substandard and it's slowly killing out nation.
                                 ______
                                 
                       Comment of Miles Colaprete
    Date Submitted: Friday, May 18, 2012, 12:04 p.m.
    City, State: New York, NY
    Occupation: Chiropractor
    Comment: As a health care provider, teaching people about proper 
nutrition and how to take care of their bodies is what I do. Without 
adequate funding, having healthy, organic options will not be as 
accessible to the general public. This Is Important To Our Future 
Health.
                                 ______
                                 
                       Comment of Lesley Colberg
    Date Submitted: Saturday, May 19, 2012, 7:37 p.m.
    City, State: Port Charlotte, FL
    Occupation: Shop Clerk in Health Food Store
    Comment: Please do the right thing by organic farmers of today and 
the future. Don't let their livelihood be swallowed by greed. Don't let 
the chance of having a healthy and therefore happy population be thrown 
away. Please remember that the USA can lead the way in this matter, 
thus making a huge statement to the rest of the world--do you care what 
other people say about this country? Do you care that people here are 
being poisoned by the chemicals that are put, often unnecessarily, on 
the produce grown here?
    Please also make this bill an honest one. Don't let the term 
`organic' become a mockery.
    Thanks for reading this and acting in the right, honest, unselfish 
way that I know you can.
                                 ______
                                 
                       Comment of Kendra Colburn
    Date Submitted: Friday, May 18, 2012, 3:30 p.m.
    City, State: Northampton, MA
    Occupation: Shipping Clerk
    Comment: As your constituent, I request that you use your power to 
modify the Food Bill in ways that support the health of the American 
people and American farmland over the long term. Specifically, I ask 
that you support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Especially important is closing loopholes in the new insurance 
subsidies so that large-scale agribusiness gets no more preferential 
treatment than smaller scale, more sustainable farmers.
    This is an extremely important issue and is key to lowering 
obesity, diabetes, heart disease and many other health epidemics facing 
Americans in increasing numbers. Please listen to your constituents and 
do what is best for all Americans.
    Thank You!
                                 ______
                                 
                         Comment of Debbie Cole
    Date Submitted: Friday, May 18, 2012, 5:31 p.m.
    City, State: St. Louis, MO
    Occupation: Occupational Therapist
    Comment: I spent my childhood on a family farm and while I now live 
in an urban area, I remain very concerned about maintaining the 
viability of family farmers and maintaining the integrity of our 
nation's farmland.
    As the House Agriculture Committee begins its work on their draft 
of the farm bill, I would urge you to restore the link between tax-
supported subsidies for crop insurance and conservation compliance 
protections that protect the nation's water and land.
    This action is especially important in light of the fact that this 
Congress is considering eliminating direct subsidies and redirecting 
these funds. Unless you reconnect these crop insurance payments with 
conservation practices, a farmers incentive to continue conservation 
practices will decrease significantly.
    Missouri ranks high in the area of soil erosion and we currently 
are losing 5 tons of topsoil per acre per year. This is unacceptable. 
We as a nation are only as healthy as our family farms.
                                 ______
                                 
                        Comment of Frank Coleman
    Date Submitted: Friday, May 18, 2012, 1:28 p.m.
    City, State: Venice, FL
    Occupation: Retired
    Comment: Please help the small farmer who is trying to produce 
local goods (hopefully organic). Take the subsidies from the large 
agricultural farmers and use the monies to support a healthy pesticide 
free and no growth hormone environment. Thank you.
                                 ______
                                 
                        Comment of Laura Coleman
    Date Submitted: Friday, May 18, 2012, 12:51 p.m.
    City, State: Newmarket, NH
    Occupation: Research Analyst
    Comment: Eating organic foods lowers the pesticide levels in your 
body. Lower pesticide levels means increased energy and overall better 
feeling of well being and health. The U.S. cannot afford to have more 
people feeling ill and being plagued with diseases where the cause is 
unknown. Developing children and expectant mothers are especially at 
risk. Our country cannot afford to depend on other countries for our 
food! Encourage organic and sustainable farming right here in the U.S. 
Please do your best to encourage our country to be beautiful and 
healthy for people, plants, and animals. We will all be happier for it 
and this will naturally have everyone working harder because they feel 
better.
    Thank you. Please consider this careful. It seems so obvious to me. 
It just makes sense.
                                 ______
                                 
                      Comment of Maryalice Coleman
    Date Submitted: Friday, May 18, 2012, 1:26 p.m.
    City, State: Brighton, CO
    Occupation: Life Coach for Women
    Comment: I want Healthy food produced by farmers--No GMOs and for 
animals to be free range! Stop the cruelty to animals and make my 
family's and the this country's food organic like it should be! No ties 
to Monsanto!
                                 ______
                                 
                         Comment of Win Coleman
    Date Submitted: Monday, March 26, 2012, 10:24 p.m.
    City, State: Sulphur Rock, AR
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: Ladies and gentlemen of the House Committee of 
Agriculture, my name is Win Coleman and I am a 32 year old rice and 
soybean farmer in Cord, AR. I farm with my father and have been doing 
so ever since I was big enough to hold a shovel. In 2001 I graduated 
from the University of Arkansas with a finance banking degree, but I 
decided to move home and begin farming full time. In those short 11 
years I have witnessed a huge change in farming and what it takes to be 
profitable. In the past several years I have become involved in several 
organizations on the state and national levels to promote rice 
globally. I'm the only person that sits on the Arkansas state boards of 
both national rice organizations, the USA Rice Federation and U.S. Rice 
Producers and have learned a lot about rice and our markets. I feel 
that we are entering the biggest challenge to face the rice industry in 
this new farm bill. As a member of these two rice organizations I have 
stayed informed on the importance of the programs such as the Emerging 
Market Program. This very program has kept us viable to this point so I 
would hate to see this program cut any. The direct payments are the 
only safety net that work for rice, but I understand that they are a 
thing of the past and would applaud that with several extra steps to be 
implemented. First, U.S. rice is the least subsidized rice in the world 
of exports which already put us at a disadvantage in both our export 
and domestic markets. How can our country submit to cotton sanctions by 
Brazil and not sanction Brazil, India, Vietnam, and others who on a 
yearly basis use their subsidies and government jargon to force down 
prices and put us at even a bigger disadvantage.
    Second the U.S. government for years has used rice and other 
commodities as a political football stripping commodity groups of 
countless years of hard work and sacrifice in opening markets only to 
get them banned from our portfolios, take Cuba, Iraq, and Iran for 
example. I understand the stance that we don't want to feed communist 
or terrorists but at the end of the day they bought from our 
competitors and are still eating. Third, I believe in feeding and 
helping those that need the help, but we need to make these provisions 
more stringent not only because they will save money, but they are 
misused in a system full of holes. I don't know how many times I have 
been in line to pay for gas only to see a man or woman in front of me 
pay for a carton of cigarettes and a 12 pack of beer with food stamps 
or other government welfare. Why not have a system that allows for 
those without the needs to receive a staple food from each part of the 
food pyramid to keep them nourished properly but cut out the free for 
all. If you are on government assistance it shouldn't be something that 
you want to stay on with amenities you receive as a hard working tax 
payer. In closing I have always been ridiculed as a farmer for 
receiving payment only to explain to people that government 
intervention has kept us from reaching our potential and costs me money 
versus a fair playing field. That shows how disconnected the American 
people have become with the farm and where our food comes from. I hope 
that everyone feels my views in that food security is the most 
important national defense and would hate to see us rely on another 
country for our food. We have the means and the want to be great 
stewards of the land, wildlife, and feed the world, let's work together 
to figure this out in order to do so with fairness and common sense in 
our times of huge deficits. Untie our hands and we will survive but 
don't strip our only true safety net while increasing regulations from 
the EPA and others that hinder us uncompetitive.
            Thank you for listening,

Win Coleman.
                                 ______
                                 
                        Comment of Diane Collar
    Date Submitted: Friday, May 18, 2012, 9:55 p.m.
    City, State: Eastbrook, ME
    Occupation: Retired
    Comment: I know agribusiness feeds the world and spends millions 
lobbying to influence their financial bottom line, but please have some 
common sense to also protect the consumer, the environment, and the 
small food producers. Think about those last three items instead of 
your need to get reelected.
                                 ______
                                 
                       Comment of Monica Collett
    Date Submitted: Friday, May 18, 2012, 3:51 p.m.
    City, State: Jackson, MI
    Occupation: Marketing
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    It is disturbing to me that many in our Federal government value 
wealth over the health of our citizens and our land (and their own 
family members). Just look at the increasing amount of obesity and 
diet-related disease that is permeating every corner of the U.S. That 
isn't due to people being lazy and eating too many potato chips. It's 
due to the way our food is manufactured and processed (and filled with 
sugar). Promoting fresh, untainted foods is the best way to restore 
health to the citizens of our nation. The long-term benefit: fewer 
people will need expensive health care. Maybe we'll even reduce the 
incidence of cancer. When I was growing up in the 1960s, I knew of one 
person who had cancer. It wasn't something we worried about. Now, 
around one in four people I know has been affected by cancer--either 
personally or within the family. With all the sugar that's put into 
most of our processed foods and the toxins introduced into our 
environment (especially herbicides and pesticides) that increase the 
amount of estrogen in our bodies, it's hard to escape poor health. 
Please heed the wake-up call!
                                 ______
                                 
                        Comment of Sara Colling
    Date Submitted: Friday, May 18, 2012, 4:39 p.m.
    City, State: Seattle, WA
    Occupation: Public Health
    Comment: As a consumer and public health practitioner, access to 
fresh food is extremely important to me. Cutting subsidies to unhealthy 
surplus crops like corn, wheat and soy and adding subsidies to healthy 
crops like fruits and vegetables would drastically improve our obesity 
epidemic and overall well being. Please consider the consumer's health 
when you write the Farm bill.
                                 ______
                                 
                         Comment of Ann Collins
    Date Submitted: Friday, May 18, 2012, 9:35 a.m.
    City, State: St. Louis, MO
    Occupation: Assistant Reference Librarian
    Comment: Please do not cut funding for Food Stamps. There are too 
many families during this hard economic times that need this help. It 
is a very successful program that not only helps children and families 
but also the elderly who are also a vulnerable group. This also helps 
new farmers, established farmers, organic farmers, we certainly need 
more of these people to feed all.
    We need to support the smaller farmers rather that the huge 
agricultural commercial farms this keeps employed the smaller farmers 
and ranchers. And also very important we must ensure the land it used 
for the greatest good. Thank you.
                                 ______
                                 
                       Comment of Kristi Collins
    Date Submitted: Wednesday, May 09, 2012, 12:55 p.m.
    City, State: Stockbridge, GA
    Occupation: Case Management
    Comment: I think there needs to stricter stand on those that are 
Abusing food stamps. There are people out there that actually Need this 
food. Then there are people that get $1,000's in food stamps and turn 
around and sell the stamps. Those people need more than just a smack on 
the hand.
                                 ______
                                 
                        Comment of Linda Collins
    Date Submitted: Saturday, May 19, 2012, 9:00 a.m.
    City, State: Cape Coral, FL
    Occupation: Retired Telecom CSR
    Comment: The health of myself and my family along with the rest of 
the world depends on safety of agriculture, killing bees, use of 
Roundup and altering DNA of our food is not safe.
                                 ______
                                 
                       Comment of Preston Collins
    Date Submitted: Friday, May 18, 2012, 2:27 p.m.
    City, State: Yelm, WA
    Occupation: Retired Electrical Engineer
    Comment: Please do not promote Big Ag over small farmers and home 
based gardens and enterprises. What is happening to whole milk 
producers is criminal. Respect our constitutional rights and freedoms. 
Do no harm.
                                 ______
                                 
                        Comment of J.D. Collner
    Date Submitted: Tuesday, May 08, 2012, 3:04 p.m.
    City, State: Cocoa, FL
    Occupation: Retired Church Volunteer
    Comment: This is a contra-comment to what you are probably hearing 
from the ``Feeding America'' Advocacy and Public Policy group. My wife 
and I run the Food Pantry at FUMC Port St. John, which feeds hundreds 
of people each year in our depressed local economy. We do not 
participate in TEFAP, but purchase food at a discount from Second 
Harvest as well as local grocery stores. Our funds come from generous 
congregational gifts as well as community food drives. Our personal 
belief is that taking additional ``strings attached'' money from the 
Federal Government and the already stretched tax payer is not what 
Christian Charity should be. Therefore, we ask that your committee 
develop policies which do not pander and make people going through 
tough time more dependent on government. Churches and communities have 
the rightful obligation to provide temporary aid to the hungry.
                                 ______
                                 
                        Comment of Janie Collomb
    Date Submitted: Saturday, May 19, 2012, 10:16 p.m.
    City, State: Truckee, CA
    Occupation: Retired Teacher
    Comment: Monostrous Agrifarms are not Farms. They are mass 
producers of heavily laden pesticide product called ``FOOD.'' Stop 
subsidies to these industries and only help fund the small farms again.
                                 ______
                                 
                      Comment of Richard E. Colson
    Date Submitted: Friday, May 18, 2012, 4:18 p.m.
    City, State: So. Portland, ME
    Occupation: Electronics Tech
    Comment: Corporate farm giants have put a stranglehold on the daily 
health and well being of every American. The effects from pesticides 
and germ ridden feed lots are far reaching. Obesity is now commonplace. 
breast cancer and prostate can now be linked to chemicals in the food 
chain. the change needs to start now!
                                 ______
                                 
                      Comment of Rev. Pat Colwell
    Date Submitted: Friday, April 27, 2012, 9:18 a.m.
    City, State: Martinsburg, WV
    Occupation: Minister
    Comment: If the farm bill and the food assistance bill could be 
combined, locally owned and operated farms (especially family 
operations) could be utilized to help feed the people. The USDA could 
help to coordinate neighborhood and community gardens in addition to 
the farm to school program, encouraging young people to learn and grow, 
whilst also feeding the people and encouraging good health.
                                 ______
                                 
                         Comment of Ann Comanar
    Date Submitted: Saturday, May 19, 2012, 8:52 a.m.
    City, State: Brooklyn, NY
    Occupation: Wardrobe Supervisor/Dresser Metropolitan Opera
    Comment: With due respect I believe that clean food is a right and 
not a privilege. Food that is grown with clean healthy seed not GMO. 
Food that is produced without the use of questionable chemical 
fertilizers, herbicides and pesticides which not only pollute and 
mutate our bodies but seeping poison into our waterways as well. I ask 
you to invest in a taste test yourself. Eat organic staples for 1 
month. That is butter, eggs, bread, milk and meats. I guarantee that 
you will taste the difference, you will feel the difference and will be 
loathe to revert to non-organic. Myself and my family are worth the 
price which is a bargain compared to the difference in safety, taste 
and nutritional value. I cannot in good consciousness feed any child 
anything less . . . how can you?
                                 ______
                                 
                       Comment of Maureen Combes
    Date Submitted: Friday, May 18, 2012, 1:43 p.m.
    City, State: Kapa'au, HI
    Occupation: Teacher
    Comment: To the honorable Congresswoman Hirono,

    Please take a good, hard look at the state of agriculture in 
America today and ask yourself: Do we want to continue to subsidize 
those massive corporations that bring us cheap junk food, or do we want 
to support our smaller, more local farmers that bring us high quality, 
fresh food? Let's put our money in the places that support a vibrant 
and Healthy country. Our current farm bill does Not do that. Let's 
change the course!
            Aloha,

Maureen Combes.
                                 ______
                                 
                        Comment of Mary Comfort
    Date Submitted: Saturday, May 19, 2012, 1:05 p.m.
    City, State: Coeur d'Alene, ID
    Occupation: IT Specialist
    Comment: It is time to realize that agribusiness is not in the best 
interest of the American people, nor the planet. In a capitalist 
society purchasing should be the driving force in deciding market 
strategies and business focus. Unfortunately, this has been usurped by 
a small number of highly overpaid corporate executives who either lack 
the business acumen or big picture education to make a truly capitalist 
business environment work. In its place we have millions of dollars 
being spent on lawyers and lobbyists, none of whom are concerned about, 
or working for the general good. Evidence of how this is not working is 
staring us in the face with an ever increasing rate of obesity, 
diabetes, auto-immune health issues, sky rocketing health costs, a 
rising Alzheimer's rate, etc. The bottom line.what we as a nation have 
been doing is not working and we need to change the way we do things, 
beginning with providing people with accurate information about what 
they are eating, and making sure that good wholesome, unadulterated 
real food is available to them at a reasonable price. If you are not 
part of the solution you are adhering to old beliefs and behaviors, and 
hence are part of the problem. Change is due now! As one who is 
suffering and has spent the past 4 years healing my body severely 
damaged by agribusiness practices, and poor health care I believe 
Organic is in our best interest as a nation and a species. The farm 
bill must accurately protect organic labeling, be supportive of local 
and regional organic farms, and punish the corporations using sleazy 
practices and questionable science to put their modified seeds into 
fields and then going after the small farmer. They are the ones who 
should be punished and fined. As far as I am concerned agribusiness 
methods, policies and behaviors have no place in my future, unless 
significant changes are made in the crops they are growing, the methods 
they are using and the manner in which they treat small local farms.
                                 ______
                                 
                        Comment of Mary Comfort
    Date Submitted: Friday, May 18, 2012, 12:35 p.m.
    City, State: Warren, MI
    Occupation: Secretary
    Comment: In a time when our nation is focusing on Health Care 
Reform, it is appropriate to also focus on Health Food Reform. Fresh, 
organic, non-GMO, sustainable agriculture is essential to our future. 
Please vote for People instead of greed at the expense of people. This 
is America the Beautiful--let's keep it that way! God bless you.
                                 ______
                                 
                       Comment of John Commerford
    Date Submitted: Thursday, May 17, 2012, 12:19 p.m.
    City, State: Phoenix, AZ
    Occupation: Lawyer
    Comment: I support legislation like Sodsaver and CSP. With corn and 
soy going through the roof, there has to be some inducement to leave 
land wild.
    Thinking more selfishly, I support low interest loans for beginning 
farmers, especially those who eschew herbicides and pesticides. I 
expect to buy rural property to farm in the next twelve months and plan 
to farm as sustainably as possible. This type of funding is especially 
important to me.
                                 ______
                                 
                        Comment of Samantha Como
    Date Submitted: Friday, May 18, 2012, 3:27 p.m.
    City, State: Oak Lawn, IL
    Occupation: Self-Employed
    Comment: Stop killing all of us you murdering monsters, we will not 
tolerate any more of your abuse. You will be made to pay for your 
atrocities, count on it, so don't keep adding to your many offenses.
                                 ______
                                 
                      Comment of Michael Compston
    Date Submitted: Tuesday, May 08, 2012, 4:12 p.m.
    City, State: Smith, NV
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock, Specialty Crops
    Size: 500-999 acres
    Comment: Concentrate support for conservation and nutrition. 
Reasonable crop insurance for catastrophic loss only and eliminate 
price supports. Markets will stabilize production.
                                 ______
                                 
                         Comment of Dan Conine
    Date Submitted: Friday, May 18, 2012, 12:04 p.m.
    City, State: Belgium, WI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Health reform (not health CARE reform: which is just 
changing who builds the hospitals for the sick people) begins with food 
and ends with knowledge of what our food does to us, whether we can 
obtain healthy food or just calories, and where the money that supports 
towns and villages stays in those towns and villages or is sent to 
central processors and offshore banks.
    We don't need new government organizations: we just need the ones 
we have to do their actual jobs instead of the jobs of the 
corporations.
                                 ______
                                 
                        Comment of Paul Conklin
    Date Submitted: Friday, May 18, 2012, 12:41 p.m.
    City, State: Solway, MN
    Producer/Non-producer: Producer
    Type: Livestock, Poultry/poultry products, Specialty Crops, 
Vegetables
    Size: 50-150 acres
    Comment: I think ag policy has been going in the wrong direction. I 
just read an article about the causes of our obesity epidemic, the main 
one being the oversupply of cheap, bad food. Why do we have this 
oversupply? Because the USDA is paying farmers to produce it. Why are 
we paying farmers to produce it, because the companies that make 
billions of dollars producing cheap, bad food need cheap raw materials, 
and because the mega farms that get most of the benefits have a lot of 
clout.
    There have been some positive efforts to limit the amount that any 
farm can get in subsidies. Now apparently the subsidy payments are 
being scrapped and replaced with an ``insurance'' program that will 
again allow unlimited access to Federal dollars for big farms, with no 
ties to environmental performance.
    Obviously I think this is wrong. What should we do?

    (1) Get the government out of farm subsidies altogether. The small 
        and medium sized farms that are producing good, healthy food 
        don't benefit much anyway; or

    (2) pay farmers to produce good, healthy food and distribute it to 
        the people who need it!

    Some current programs help with this.

  <bullet> The Local Foods, Farms and Jobs Act.

  <bullet> The Beginning Farmer and Rancher Opportunity Act

  <bullet> The EQIP Organic Initiative

  <bullet> The CSP

  <bullet> Making sure that all government payments are tied to 
        compliance with environmental and conservation laws and rules.
                                 ______
                                 
                        Comment of Susan Conklin
    Date Submitted: Saturday, May 19, 2012, 4:37 p.m.
    City, State: Mosier, OR
    Occupation: Chef
    Comment: Oregon is a model for what can be a new way to look at 
Agriculture, well, actually, an old way revised. More than 75 new small 
farms have sprung up just in the Columbia Gorge in the past few years 
and schools, retail stores, individual farmers are benefitting from 
locally grown, often organic/pesticide-free, soil rich, produce, not to 
mention meat without hormones, antibiotics, ammonia and mad cow 
disease. All of us need you to do everything you can to pave the way 
for these farms to thrive and not be pushed out, bullied or otherwise 
put out of business by large corporate farms. All farms need to thrive 
and survive. For every decision you make, please keep these small farms 
in mind over the interests of the big guys who are, at times, trying to 
own all of the seed farmers plant, and putting obscenely genetically 
modified food in our stores. This is a very serious concern to those of 
us who need a choice to stay healthy and eat food that has proper 
nutrition. Most of the food we see in grocery stores today, contains 
less than \1/2\ the vitamins and minerals in it, it had in 1950. We are 
in your hands.

Susan Conklin.
                                 ______
                                 
                         Comment of Gail Conley
    Date Submitted: Sunday, May 20, 2012, 6:06 a.m.
    City, State: Fairfax, VA
    Occupation: Retired
    Comment: This nation was built on the backs of the small farmers. 
Don't turn your backs on them at a time like this when they need your 
help. We are a nation in need, our people are obese and getting sicker 
as a group. Those who seek to help them with healthful foods are being 
squelched. It is your hands to do the right thing for the future 
generations of organic farming. Give us all a chance, Please!
                                 ______
                                 
                     Comment of Hilary Connaughton
    Date Submitted: Saturday, May 19, 2012, 10:24 p.m.
    City, State: McCloud, CA
    Occupation: Nurse
    Comment: I'm tired of feeling like our agriculture is just another 
greedy corporation and I want government that I feel wants what is best 
for me and mine.
                                 ______
                                 
                        Comment of Casey Connell
    Date Submitted: Friday, May 11, 2012, 12:49 p.m.
    City, State: Belen, NM
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Vegetables
    Size: Less than 50 acres
    Comment: This country needs healthier food. We need to practice 
sustainable agriculture so that our future generations will have a 
planet they can continue to use for food. One that has not been 
poisoned by pesticides and herbicides which contains the vitamins and 
minerals we need to be healthy.
                                 ______
                                 
                       Comment of Joanna Conrardy
    Date Submitted: Wednesday, May 02, 2012, 9:34 p.m.
    City, State: Albuquerque, NM
    Occupation: Educational Assistant
    Comment:

    1. Fairness for small farmers is essential.

    2. Labeling Genetically Modified food products is essential.

    3. Helping the poor and nearly poor adults and children in this 
        country is essential.

    Please act responsibly when voting on the farm bill. Thank You.
                                 ______
                                 
                        Comment of Peggy Conroy
    Date Submitted: Saturday, May 19, 2012, 8:12 a.m.
    City, State: West Chazy, NY
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock, Vegetables, Other
    Size: 151-300 acres
    Comment: We need support for small farmers who Do Not Use Poisons 
On The Land Or Torture Their Animals By Restricting Them To Indoor, 
Cramped Housing 24/7.
    We need to Stop ``King Corn'', and grow crops that take little from 
the land, rather, increases it's health and productivity, mostly 
grasses and legumes.
    We know you are paid but big ag and soon you will be voted out of 
office. I saw your forestry questioning (by a GOP rep) allowing Only 
forestry people to preach last nite on C-SPAN, it was totally 
disgusting, just a platform for big lumber.
    You people can't be gotten rid of soon enough.
                                 ______
                                 
                      Comment of Paul Constantine
    Date Submitted: Saturday, May 19, 2012, 9:34 a.m.
    City, State: Hayesville, NC
    Occupation: Musician--Entertainer
    Comment: Please consider legislation that helps the small 
independent growers that provide organically grown food for local 
consumers. Support bio-diversity in agriculture and require labeling 
for genetically modified food crops.
                                 ______
                                 
                  Comments of Patti Constantino-Martin
    Date Submitted: Friday, April 27, 2012, 7:14 p.m.
    City, State: Spring Hill, FL
    Occupation: Education
    Comment: End the corporate whore stance. You can't be Christians 
and corporate whores at the same time. It just doesn't fit.
    Date Submitted: Wednesday, May 09, 2012, 4:44 p.m.
    Comment: Would you starve your own parents? There are plenty of 
elderly who never had kids and are alone and vulnerable. The American 
thing to do is protect them. Take from yourselves, take from Wall 
Street, and big banks. They are responsible, make them Accountable.
                                 ______
                                 
                   Comment of Gabriella Contestabile
    Date Submitted: Friday, May 18, 2012, 11:01 a.m.
    City, State: New York, NY
    Occupation: Writer and Business Owner
    Comment: American food policy is shameful. Stop subsidizing the 
unhealthy processed foods (it's a stretch to call them food) that 
dominate every grocery store in America. This Is Making People Sick! 
Stop lining your pockets with money from Big Food while all of you in 
Congress can well afford to feed your families the healthy produce so 
many families in America cannot afford or have access to. Stop making 
us sick with antibiotics, corn fed cattle, and disgusting processed 
garbage in every store. I was born and lived in Europe and thankfully 
adopted those habits for my family. But it's expensive whereas it is 
far more affordable in countries outside the U.S. Stop subsidizing big 
corn. Support local farmers and growers. Help our local produce thrive. 
Finally, when are you going to figure out that your job is to legislate 
for the public good not for your private greed.
    Get over yourselves and do what's right. I'm not holding my breath. 
That said, I know where Jerold Nadler, my representative stands, on the 
side of what's right. But he, and a few others, are unfortunately the 
exception.
                                 ______
                                 
                       Comment of Emma Contreras
    Date Submitted: Sunday, May 20, 2012, 11:36 a.m.
    City, State: Boca Raton, FL
    Occupation: MRO Sales
    Comment: We must have a fair and healthy farm bill. As it is today 
we are blind and are not able to make wise decision on the food we feed 
our families and is making us sick.
                                 ______
                                 
                      Comment of Christopher Cook
    Date Submitted: Friday, March 16, 2012, 9:47 a.m.
    City, State: Hereford, AZ
    Occupation: Construction, Draftsman/Engineer
    Comment: Having gone through a starvation period in my youth, I 
urge you to include singles in your food assistance programs. I worked 
very hard to pay my rent and phone, but at $2 to $3 an hour, I could 
not afford much food. I went from 160 pounds to 130 pounds (bare bones) 
until I got emergency food stamps. After I got the food stamps I was 
able to find a good job. It gave me time to look instead of living day 
to day (1974). I got the food stamps only one time, but it got me on a 
path of never needing them again for my entire life (40 years since).
                                 ______
                                 
                          Comment of Don Cook
    Date Submitted: Saturday, May 19, 2012, 8:50 a.m.
    City, State: Waco, GA
    Occupation: Physical Therapist
    Comment: The U.S. food and agricultural policy must focus on 
adopting best agricultural practices that put the health of its 
citizens, the land and the livelihood of farmers and farm workers over 
the interests of industrial agriculture lobbyists.
    Career politicians in Washington and across this nation are out of 
touch with the values of the American people. Corporate agribusiness 
has a stranglehold on our regulatory system and our political leaders.
    Farmers and eaters across the U.S. benefit from a fair and healthy 
farm bill. Do Not cut funding to vital programs that promote 
conservation and support for organic and sustainable agriculture.
    Instead, support the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286).
    Fully fund conservation programs, such as the Conservation 
Stewardship Program, and make sure that enrollment in any new insurance 
subsidies are tied directly to compliance with conservation programs.
    Stop tax payer funded government giveaways to agribusiness and, 
instead, support initiatives that favor community supported 
agriculture. Eliminate farm subsidies that support agribusiness and 
shift support to local farming efforts.
    Endorse and implement all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236).
    Maintain the EQIP Organic Initiative.
    Tax payers Do Not support a $33 billion new entitlement program 
that guarantees the income of profitable farm businesses and $90 
billion in subsidies for crop and revenue insurance policies.
    Do Not cut $4 million from organic research funding or cut funding 
to support Beginning Farmers.
    Do Not support new subsidized insurance programs that leading 
sustainable agriculture advocates are calling rife with opportunities 
for fraud and abuse.
    Get rid of direct payments to commodity farmers. Kill the proposed 
subsidized insurance program that will allow giant commodity farmers 
and insurance companies to walk away with billions in taxpayer dollars 
while putting the land, soil and environment at greater risk.
                                 ______
                                 
                       Comment of LTC Lenny Cook
    Date Submitted: Friday, May 18, 2012, 8:55 p.m.
    City, State: San Antonio, TX
    Occupation: U.S. Air Force
    Comment: I took the oath of office as a U.S. Military Office, to 
support and defend the Constitution of the U.S.--I expect those elected 
officials in our U.S. Government to do the same. Not to defend the 
interest of lobbyists. Thank you.
                                 ______
                                 
                        Comment of Margaret Cook
    Date Submitted: Saturday, May 19, 2012, 8:21 a.m.
    City, State: Waco, GA
    Occupation: Registered Nurse
    Comment: I support sustainable community agriculture as a means to 
feed this nation healthy food. I object to continued government support 
and favoritism/monetary support for agribusiness. It is agribusiness/
factory farming that has brought us bovine spongiform encephalopathy/
mad cow disease and food recalls to numerous to mention.
    I support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286).
    I endorse fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    The request the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236). And I want the EQIP 
Organic Initiatives Maintained.
    I am angered by Big Government's support of Big Ag and will no 
longer support politicians who value lobbyists' contributions to their 
campaign coffers above the health of the American people!
                                 ______
                                 
                        Comment of Michael Cook
    Date Submitted: Friday, May 18, 2012, 10:27 p.m.
    City, State: Jamaica, NY
    Occupation: Artist
    Comment: I think you really need to listen to the voices of your 
constituents who realize the significance of providing healthy, organic 
food for everyone, not expensive subsidies to Agribusiness which does 
not need them, and is sending us down the drain with their non-
ecological, non-conservation, unhealthy practices. The food these 
factory farms produce is causing huge increases in the cost of our 
healthcare system, not to mention our national mortality rates. If left 
to their own devices, these people will entirely ruin the quality of 
our land, and food supply in the United States. Do something about this 
now by reversing this trend.
                                 ______
                                 
                         Comment of John Cooke
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Haverford, PA
    Occupation: Retired
    Comment: It's time for real farm reform. Stop subsidizing 
agribusinesses and start focusing on policies that promote healthy and 
organic farms and assure a healthy diet for all Americans.
                                 ______
                                 
                       Comment of Katherine Cooke
    Date Submitted: Friday, May 18, 2012, 12:54 p.m.
    City, State: Brooklyn, NY
    Occupation: Teacher
    Comment: We need appropriate safeguards for our food sources. 
Specifically I would like to see more done about sustainable 
agriculture, getting rid of GMO food and GE food, and working towards 
organic agriculture across the country. I cannot trust food that is 
produced with so many chemicals.
                                 ______
                                 
                        Comment of Monica Cooley
    Date Submitted: Saturday, May 19, 2012, 6:49 a.m.
    City, State: Lafayette Hill, PA
    Occupation: IT Project Manager
    Comment: I am a strong proponent of sustainably-farmed, local food. 
Our current agricultural policy does not allow this type of farm or 
farmer to thrive, but instead is skewed to ensure that large mass 
production farms offering excessive amounts of foods we do not need 
grown via methods that are harming our environment.
    Let's make our policy even the playing field for the farmers that 
are growing foods we want and need in a way that benefits the people 
and the environment. Thank you.
                                 ______
                                 
                       Comment of Anita Coolidge
    Date Submitted: Friday, May 18, 2012, 3:09 p.m.
    City, State: Cardiff, CA
    Occupation: Semi-Retired: Energy Healer and Writer
    Comment: As a citizen of the U.S. and very concerned about the 
quality of the food we eat, as well as the well-being of those who 
produce it, I never want to see bills passed that allow greed to take 
over for quality of food and quality of life. We all need to be 
protected from pesticides and GMOs.
                                 ______
                                 
                       Comment of Barbara Cooper
    Date Submitted: Friday, May 18, 2012, 1:21 p.m.
    City, State: Barton, NY
    Occupation: Retired Social Worker
    Comment: I believe food production--because it is controlled by 
corporate $ and agribusiness--is hurting our health, the environment, 
and the economy (with the exception of the few decision-making 
corporations). I do not feel current decision-making is based on 
principles of science and health which is what we need.
                                 ______
                                 
                       Comment of Caroline Cooper
    Date Submitted: Friday, May 18, 2012, 11:21 a.m.
    City, State: Las Vegas, NV
    Occupation: Biosync Practitioner
    Comment: To whom it may concern,

    I find it an absolute disgrace that our food is full of chemicals 
and pesticides. I also find it a disgrace that it has to be so much 
more expensive to eat organic, hormone free, antibiotic free, and 
chemical free food. We should all have access to healthy whole foods. I 
think it is imperative that we go back to basics as nature intended. 
With over 60% of our population being overweight and ridden with all 
kind of diseases that would easily disappear if only they had access to 
real, healthy and affordable food. So needless to say, our generation 
is in desperate need of change and together we can change that. We owe 
it to ourselves and this planet to make that change.
    In high hopes of seeing that change happen, I thank you for your 
time.

Caroline Cooper.
                                 ______
                                 
                        Comment of Deanne Cooper
    Date Submitted: Friday, May 11, 2012, 6:07 p.m.
    City, State: LaGrange, KY
    Producer/Non-producer: Producer
    Type: Vegetables, Other
    Size: Less than 50 acres
    Comment: As an individual majoring in biology, geology, and 
eventually a Ph.D. program for ecology, I have tremendous interest in 
sustaining the diversity of our ecosystems. We are at a critical time 
in our planet's history to slow down the impact of our continued 
actions for the greatest positive effect of long term consequences for 
the planet. Conservation and investment into a farm bill that sustains 
small farms with alternative farming practices like organic farming 
that return our land to producing quality food products that improves 
the health of the public and that sustains the environment without soil 
runoff and pesticides that infiltrate our water supply. I want my 
children to play in healthy ecosystems and have clean water that's o.k. 
to swim in. I want them to have a planet and a country that values it's 
resources and does not pillage without the thought of responsibility 
for restorative processes that continue to improve and lead the world. 
The responsibility party was given a planet to care for, not plunder 
until it is used up and not able to sustain life.
                                 ______
                                 
                        Comment of Diane Cooper
    Date Submitted: Friday, May 18, 2012, 9:02 p.m.
    City, State: Highland, NY
    Occupation: Grandmother
    Comment: When our water is poisoned by fracking and waste disposal, 
and our soil is dead from chemicals, and our total food supply is 
poisoned by Monsanto and the rest . . . and our bodies are destroyed by 
the cancers all this causes, and all the animals and the fish will have 
been destroyed by being eaten, or hunted to extinction . . . Then will 
they be happy? What will it take to stop all the genetic modification, 
feeding farmed fish and animals chemical fake food? We are delicate 
animals ourselves, and we are driving ourselves to extinction with all 
this. Just my humble opinion.

Diane (Bonnie) Cooper.
                                 ______
                                 
                         Comment of John Cooper
    Date Submitted: Friday, May 18, 2012, 2:47 p.m.
    City, State: Naalehu, HI
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: The whole idea of our life should not be simply to extract 
money from everything else your deadly products have no other function 
but to attempt to collect money and power to collect more money. Try 
doing something that actually benefits the whole world and that does 
not point directly to your folly of wealth accumulation as the only 
thing that you are.
                                 ______
                                 
                        Comment of Nancy Cooper
    Date Submitted: Saturday, May 19, 2012, 12:40 p.m.
    City, State: Stanwood, WA
    Occupation: Private Organic Gardener
    Comment: This country is supposed to be by the people, for the 
people. In other words, the farm bill should only subsidize actual 
small farmers, when they are in need. It should not be a hand out to 
Monsanto, ADM, Cargill etc.
    Also, rules should be to protect the people, not the corporations! 
(Monsanto suing because their seeds blew across the street, or 
requiring farmers to buy new seeds each year!) Absolute Madness!
                                 ______
                                 
                        Comment of Orion Cooper
    Date Submitted: Saturday, May 19, 2012, 12:12 a.m.
    City, State: Portland, ME
    Occupation: Direct Service Professional
    Comment: I believe that small, local farms, sustainable 
agricultural practices, and organic food production are the best way to 
protect our health, environmental integrity, and our economy. I also 
believe that very large farms, monoculture food production, and 
government subsidies for very large farms and other very large food 
producers are damaging to our health, our environment, and our economy. 
With this in mind, I ask you to consider the following requests while 
working on the next farm bill:

    1. Please endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

    2. Please grant full funding to the Conservation Stewardship 
        Program and other conservation programs. Please ensure that 
        enrollment in any new insurance subsidies is tied directly to 
        compliance with conservation programs.

    3. Please implement all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Please maintain the EQIP Organic Initiative.

    Thank you for your consideration.
                                 ______
                                 
                        Comment of Jessica Coram
    Date Submitted: Friday, May 18, 2012, 2:31 p.m.
    City, State: Cambria, NY
    Occupation: MIS Manager
    Comment: I would like a farm bill that promotes healthy organic 
food. Organic options are important to me and my family and they are 
often difficult to find at the grocery store.
    I also believe that agricultural subsidies should be capped so that 
larger Agribusiness firms are not using incentives as corporate 
welfare.
                                 ______
                                 
                        Comment of Shannon Coram
    Date Submitted: Friday, May 18, 2012, 10:04 a.m.
    City, State: Tampa, FL
    Occupation: Financial Analyst
    Comment: Having a young son now, I'm teaching him the importance of 
eating healthy food. Not only having access to natural, local fruit, 
vegetables and meat but having affordable access is an important step 
in the health of our children and fighting the battle of the bulge for 
all citizens. We are a very unhealthy country at the moment but making 
healthy food available and affordable to everyone is one step in 
fighting the obesity problem in America which in turn will also lighten 
the burden this epidemic has placed on our healthcare system. We need 
to lower the amount of diabetes, heart and liver disease in this 
country. Aside from the debt that our country is always dealing with, 
this is by far the biggest issue I see our country facing.
                                 ______
                                 
                      Comment of Mary Lou Corbett
    Date Submitted: Friday, May 11, 2012, 3:54 p.m.
    City, State: Johnston, SC
    Occupation: Retired Administrative Assistant
    Comment: I recommend crop subsidies only to producers who eschew 
chemical fertilizers, pesticides, genetically modified root and seed 
stock, growth hormones, and non-therapeutic antibiotics. This would (1) 
increase agricultural employment, (2) increase product pricing, (3) 
level the playing field for organic producers, domestic and foreign, to 
compete with conventional USA factory farms, (4) allow consumers to 
obtain unpolluted produce at a reasonable price, reducing the incidence 
of chronic disease and mental decline, and (5) slow and possibly stop 
epidemic bee colony collapse.
                                 ______
                                 
                        Comment of Linda Corbin
    Date Submitted: Saturday, May 19, 2012, 7:26 p.m.
    City, State: Laurel, MT
    Occupation: Semi-Retired Union Worker/Hobby Farmer
    Comment: I'm sick and tired of having companies like Monsanto 
dictating to the farmers and country how I'm going to eat. I don't want 
pesticides in my food. I don't believe they're safe and no one has 
tested this to prove otherwise, in fact, they have been found in the 
blood of some animals and children! Organic farmers are getting screwed 
by big ag and I'm sick of it. I hate this Congress, they do nothing for 
the people who put them in D.C.! They need to get off their overpaid 
asses and help the people instead of the games they're playing now! I 
am Democratic and proud of it.
                                 ______
                                 
                        Comment of Mary Corcoran
    Date Submitted: Friday, May 18, 2012, 9:31 p.m.
    City, State: New York, NY
    Occupation: Self-Employed
    Comment: Don't let Congress cut $4 million from organic research 
funding and cut in half funding to support Beginning Farmers. Tell 
Congress to support organics.
    Thank You!
                                 ______
                                 
                        Comment of Ruth Cordell
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Manchester, TN
    Occupation: Trainer, Teacher, Director
    Comment: More and more, acquiring clean ``original'' food without 
the tampering of chemicals, chemical residue, modification is becoming 
an elusive to impossible expectation.
    Good health is a birthright. The further we remove ourselves from 
the responsibility of keeping a pure food source, vegetable or animal, 
we travel further from the ownership of healthy and sound bodies and 
minds.
    I respectfully request that this issue be carefully reviewed, and 
reviewed often, to protect our future, our children, our animals, 
indeed, all living creatures. Because the science of mass production is 
very much a increasing reality, we must realized that it most often 
should not be the norm.
    Thank you for your time.
                                 ______
                                 
                     Comment of Lonney Corder-Agnew
    Date Submitted: Friday, May 18, 2012, 5:29 p.m.
    City, State: Oklahoma City, OK
    Occupation: Teacher
    Comment:

    1. No animals should be cruelly confined or deprived of light and 
        air.

    2. No hormones or universal antibiotics should be used.

    3. Pizza is Not a vegetable.

    4. Most important: Stop Monsanto from designing genetically 
        modified seeds that kill ``pests'' They're also killing bees, 
        which is beyond stupid.

    I Do Not care if business ``leaders'' don't like this. They can 
suck it up.
                                 ______
                                 
                        Comment of Floyd Cordova
    Date Submitted: Thursday, May 17, 2012, 4:12 p.m.
    City, State: Albuquerque, NM
    Occupation: Health and Wellness Advocate
    Comment: Along with getting the funding for all the nutritional 
entities, we need to include that we need to set up a committee to get 
Industrial Hemp legal to grow in the USA.
                                 ______
                                 
                        Comment of Janie Cordray
    Date Submitted: Friday, May 18, 2012, 2:43 p.m.
    City, State: Woodland, CA
    Occupation: Retired/Government Regulatory Consultant
    Comment: Please work to end subsidies for grains that are used for 
animal feed or sweeteners. It's time we subsidize real food, 
particularly non-GMO organic foods that promote health, not obesity and 
illness.
                                 ______
                                 
                        Comment of Rick Cormier
    Date Submitted: Friday, May 18, 2012, 12:40 p.m.
    City, State: Yarmouth, ME
    Occupation: Psychotherapist/Musician/Author
    Comment: We are handing our health and the future of our children's 
health to the company who brought us Agent Orange so that members of 
Congress can line their pockets from stock purchases which they have 
kept exempt from insider trading laws. We have, in effect, legalized 
corruption in the U.S. Monsanto has waged an attack on their 
competitor, the organic farmer, and our legal system . . . our 
government . . . has become too corrupt to defend the farmer.
                                 ______
                                 
                        Comment of Linda Cornell
    Date Submitted: Friday, May 18, 2012, 12:26 p.m.
    City, State: Campbell, NY
    Occupation: Retired--Banking
    Comment: Ever wonder why there is so much cancer these days. What 
is really being put in our food? You don't have to look very far to see 
the toxins that we are eating every day. Please do not allow these 
deceptive practices to continue. Tell the FDA to do their jobs and 
protect us from all the toxins.
                                 ______
                                 
                        Comment of Sandy Cornell
    Date Submitted: Friday, May 11, 2012, 10:29 a.m.
    City, State: Moab, UT
    Occupation: Nanny
    Comment: Please stop ruining our food and our planet at the same 
time. How much power and money is Enough. I will only eat certified 
organic forever . . . shame on the lot of you for bringing us to this 
point in our food system and Politics. Stop!
                                 ______
                                 
                         Comment of Gina Cornia
    Date Submitted: Wednesday, May 16, 2012, 4:55 p.m.
    City, State: Salt Lake City, UT
    Occupation: Anti-Hunger Advocate
    Comment: Utahns Against Hunger urges you to craft a farm bill that 
will protect the integrity and current structure of the Supplemental 
Nutrition Assistance Program. Changing it to a block grant will prevent 
it from responding, as it has, to downturns in the economy and will 
increase hunger and food insecurity to those who can least afford it. 
The committee should also increase funding for TEFAP, emergency food 
providers continue to serve record numbers of people who often are not 
eligible for Federal nutrition programs but are still poor. Now is the 
time for bold leadership and to shore up programs that improve health, 
reduce poverty and put food on the table.
                                 ______
                                 
                        Comment of Susan Corrado
    Date Submitted: Wednesday, April 18, 2012, 10:18 p.m.
    City, State: Verona, WI
    Occupation: Facilitator of an Agricultural Program
    Comment: Please support the full funding of the Farm bill that is 
absolutely vital for giving small family farmers half a chance against 
conglomerate agriculture. This is the time when we need to, develop 
sustainable farming and local production. The socially disadvantaged 
farm grants help to build capacity of a strong farming workforce who 
fills an important void in the family farm demise. This has severe 
consequences on the general population.
    Thank you.
                                 ______
                                 
                       Comment of Nicole Corzine
    Date Submitted: Thursday, May 17, 2012, 3:34 p.m.
    City, State: Spring, TX
    Occupation: AFIS Support Technician
    Comment: I do not support the ban of farmer's children or family 
being able to work on the farm as ``chores.'' Kids need a strong work 
ethic now more than ever, and taking away an incredible experience for 
them will do no favors. I also do not support government subsidies to 
farmers to only grow certain amounts of food per season. This is a form 
of price control. Allow farmers to choose what they believe should be 
planted and stay out of their lives!
                                 ______
                                 
                        Comment of Jules Cosenza
    Date Submitted: Thursday, May 17, 2012, 12:54 p.m.
    City, State: Schwenksville, PA
    Occupation: Teacher
    Comment: Point out that feeding our neighbors is a public-private 
partnership, we do our part with fund raisers and food drives and 
volunteerism but if you approve cutting anti-hunger programs it will 
increase hunger in America, as well as the associated health care, 
educational, and economic costs of food insecurity and please remember 
the families who are struggling in our community. I urge you to protect 
and strengthen important anti-hunger programs like TEFAP, SNAP, and 
CSFP in the 2012 Farm Bill reauthorization.
                                 ______
                                 
                       Comment of Brona Cosgrave
    Date Submitted: Friday, May 18, 2012, 9:21 a.m.
    City, State: Brooklyn, NY
    Occupation: Communications
    Comment: Take back the farm bill from corporate ag and food 
processing companies. Creating a fairer farm bill that supports small 
diversified farms will not only stimulate the economy, but also improve 
the health of the nation thereby reducing health costs further adding 
to the country's bottom line. We deserve to be able to buy ``clean'' 
fresh nutritional food.
                                 ______
                                 
                     Comment of Charles Coshow, Jr.
    Date Submitted: Friday, May 18, 2012, 1:00 p.m.
    City, State: Houston, TX
    Occupation: Data Report Developer
    Comment: We can either continue to pursue policies that are 
endangering the future of agriculture and our health, or we can make a 
change and promote crops Besides wheat and corn, we can create an 
environment that promotes best practices, promote food that makes us 
Better when we eat it, and ensures that America can feed, not just 
itself, but the world for generations to come.
                                 ______
                                 
                        Comment of Pat Cosimano
    Date Submitted: Saturday, May 19, 2012, 6:54 a.m.
    City, State: Woodside, NY
    Occupation: Homekeeper
    Comment: I'm informed that Congress is considering cutting funding 
to vital programs such as nutrition, conservation and support for 
organic and sustainable agriculture.
    I oppose any cuts to these programs and hope you oppose cuts as 
well.
                                 ______
                                 
                         Comment of Anita Cost
    Date Submitted: Saturday, May 19, 2012, 12:24 a.m.
    City, State: Fountain Valley, CA
    Occupation: Unemployed
    Comment: We need a better system. I want to be able to trust food 
producers to produce sustainable and healthy food with less chemicals 
and pollution. I want reliable honest food labels. I want independent 
testing of industry research. I and my family are depending on you to 
make honorable choices when it comes to our food.
                                 ______
                                 
                        Comment of Demelza Costa
    Date Submitted: Friday, May 18, 2012, 3:55 p.m.
    City, State: Sweet Home, OR
    Occupation: Counselor
    Comment: I absolutely object to Any subsidy farm aid being given to 
corporations this is an Ignorant policy which only encourages their 
greed and fascist Agenda. Farm subsidies should absolutely be given to 
legit mate small and family farms who need this assistance. Priority 
should be given to authentic organically grown crops and seeds. 
Absolutely None should be given to Monsanto and bio-tech growers/
marketers. The object of `Farms' is to produce food and seeds fit for 
consumption Not sickening people and animals and destroying native 
plants and toxifying the ecology!
                                 ______
                                 
                       Comment of Chris Costanzo
    Date Submitted: Friday, May 18, 2012, 1:06 p.m.
    City, State: Downingtown, PA
    Occupation: Financial Analyst
    Comment: The United States has one of the lowest levels of food 
standards in the developed world whether this is generally accepted or 
not. The food produced in factory farms is nutritionally insufficient 
at best. If you disagree then please explain to me why in the U.S. we 
have obese yet malnourished people. The attempted domination of the 
food system by the benefactors of biotech companies pushing GMOs is 
highly shameful as the heavy use of pesticides is implicated in various 
health concerns and is a major pollutant that we are all forced to live 
within the environment. The food system in the U.S. is unacceptable and 
has very significant negative ramifications ranging from poor school 
performance by our children to overall healthcare expenses that we 
cannot afford. Myself and an increasing number of people are fully 
aware of the corrupt nature of the U.S. food system and will continue 
to support local, responsible, organic food growers and producers while 
our politicians support chemical producers and factories that churn out 
product that has a direct negative impact on the performance and 
productivity of the people all the while amplifying our already 
unsustainable healthcare costs.
                                 ______
                                 
                     Comment of Shawndeya Costello
    Date Submitted: Friday, May 18, 2012, 1:59 p.m.
    City, State: Marcola, OR
    Occupation: Retired
    Comment: I have incorporated 3 chickens, 3 ducks and 2 geese into 
my backyard of 5 acres. I no longer need pesticides and I can eat eggs 
from chickens who are not living a tortured life. How would you like 
living in a cage? Do you want your grandchildren to inherit a poison 
filled Earth that creates birth defects?
                                 ______
                                 
                         Comment of Tish Cotter
    Date Submitted: Friday, May 18, 2012, 9:37 p.m.
    City, State: New York, NY
    Occupation: VP of a Small Consultancy
    Comment: Support family farms, organic farming and beyond organic 
farming--label GM foods, protect all small farmers and our soil from 
GMs and from big ag. Stop supporting diabetes and obesity with 
subsidies as they stand, make fresh local food available.
                                 ______
                                 
                       Comment of Lawrence Cottle
    Date Submitted: Friday, April 27, 2012, 9:04 a.m.
    City, State: Dallas, TX
    Occupation: Chiropractor
    Comment: We must NOT allow critical food programs to just ``go 
away''! Try going hungry (fasting) for a day or two. You will soon 
realize the stark feelings of deprivation, depression, and desperation.
                                 ______
                                 
                        Comment of Andrew Cotton
    Date Submitted: Friday, May 18, 2012, 7:18 p.m.
    City, State: Midway, FL
    Occupation: Health Care
    Comment: As more and more data is reported regarding the hazards 
both to the environment and to our bodies associated with the use of 
agricultural pesticides and inappropriate use of antibiotics to 
stimulate unnatural growth rates in meat we need policies and political 
figures to support smaller more diversified farmers who are working to 
produce food without harmful chemicals. I don't think that extra money 
should be dumped into the farming sector, just spread it around fairly. 
That doesn't mean huge corporate agribusiness gets 90% of the subsidies 
just because they lobby harder with their money. It also means that 
growers associated with these big firms Are Not who I am advocating get 
the larger cut, they have chosen to offer up their products to a bigger 
source and are not operating independently. Support independently 
operated small organic and/or naturally grown farms fairly, and get 
non-biased oversight on the reevaluation of limiting regulations 
intended for large operations but cost prohibitive and unnecessary for 
the small farm. Furthermore it is sickening to hear news of the 
weakness and lack of accountability in the USDA and other regulatory 
agencies dropping the ball when it comes to enforcing basic standards 
for the big players who grow conventional and often genetically 
modified foods. And to whomever may be reading this (or not), count on 
the fact that if transparency and action are not show in the topics 
listed above you will get voted against until someone who can and will 
fixes our screwed up food system.
                                 ______
                                 
                        Comment of Nancy Cotton
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: Lebanon, TN
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: I have a private farm and want to see farmers able to farm 
``the right way.'' Every time you pass another of your horrible bills, 
you make it harder for small farmers to stay in business. I don't want 
to eat factory farm, GMO food. Small farmers are the backbone of this 
country.
                                 ______
                                 
                       Comment of Stephen Couche
    Date Submitted: Friday, May 18, 2012, 10:43 p.m.
    City, State: Portland, OR
    Occupation: Retired
    Comment: It is critical to the health of this planet that we really 
stand up and support (even subsidize) the family farmer. The closer we 
can get the growers to their markets the fresher the produce and the 
better for the environment.
                                 ______
                                 
                      Comment of Christian Coulon
    Date Submitted: Friday, May 18, 2012, 1:57 p.m.
    City, State: Davis, CA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Support small, local growers. Stop pesticides, end big ag 
subsidies. End factory farming. Require greenbelts. Create agricultural 
education requirement for ALL students in the USA--everyone needs to 
know where food comes from!
                                 ______
                                 
                        Comment of Nina Council
    Date Submitted: Sunday, May 20, 2012, 12:13 a.m.
    City, State: Ashland, OR
    Occupation: Retired Artist and Admin. Person
    Comment: Big agriculture is out of hand, small farmers having real 
trouble. Must produce organic, safe food, no GMO's used. Our food is 
becoming more and more unhealthy.
                                 ______
                                 
                       Comment of George Courter
    Date Submitted: Sunday, May 20, 2012, 10:32 p.m.
    City, State: Galesburg, IL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 50-150 acres
    Comment: Gentlemen:

    I attended the committee hearing in Galesburg. This hearing was 
very well conducted and Chairman Lucas did an outstanding job of 
conducting it. I thought it was also well attended. I agree with 
everything David Erickson spoke about. As a taxpayer, I want Congress 
to cut spending, and reduce taxes. The Federal budget must be balanced 
and debt reduced. The major portion of the Ag budget is food stamps and 
people must be put to work to reduce that program.
                                 ______
                                 
                         Comment of Dave Cowen
    Date Submitted: Friday, May 18, 2012, 1:21 p.m.
    City, State: San Diego, CA
    Occupation: Mortgage Broker
    Comment: Please use the newest Ag Bill as an opportunity to promote 
nutrition, healthy eating, and an increase in organic farming. We have 
tried to opposite, and the damage to our country's health and citizens 
has been dramatic. Please do the right thing.
                                 ______
                                 
                      Comment of Ann Cowles, Ph.D.
    Date Submitted: Friday, May 18, 2012, 4:42 p.m.
    City, State: Davis, CA
    Occupation: Supportive Living Services
    Comment: I believe that healthy food makes healthy people, and 
unhealthy food makes unhealthy people. This country could save Billions 
in health care costs by promoting policies that support the production 
of organic foods and naturally-fed food animals. Even though the Local 
Foods, Farms and Jobs Act (H.R. 3286) has provisions I don't like, I 
still ask that you vote for it in order for conservation programs to be 
funded, and for enrollment in any new insurance subsidies to be tied to 
compliance with adherence to conservation programs. Also, I want 
implemented all provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236). No Farms, No Food. Since it's only a 
matter of time before it is generally accepted that chemicals used in 
food production contribute to cancer and other illnesses, I also ask 
that you support the maintenance of the EQIP Organic Initiative. Thank 
you very much,

Ann Cowles, Ph.D.
                                 ______
                                 
                        Comment of Janet Cowling
    Date Submitted: Thursday, May 17, 2012, 7:26 a.m.
    City, State: Saline, MI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I oppose the cuts proposed by the House. Please add these 
important items to the House version of the Farm Bill Community Food 
Projects Program--$10 million per year to help communities build food 
self-reliance.
    Farmers Market and Local Food Promotion Program--$20 million per 
year to develop farmers market capacity and create food hubs to connect 
farmers with schools, hospitals, grocery stores and other markets.
    Hunger-Free Community Incentive Grants--An average of $20 million 
per year for a new SNAP local fruit and vegetable incentive grant 
program at farmers markets and other healthy food retailers.
                                 ______
                                 
                         Comment of Leslie Cox
    Date Submitted: Saturday, May 19, 2012, 10:43 a.m.
    City, State: Medford, OR
    Occupation: Secretarial
    Comment: I Fully and Emphatically support the following:

    (1) The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (4) Maintaining the EQIP Organic Initiative.

    Thank you for listening. Please, think of your children's future 
and their children's future. Their best interest should not be placed 
in the hands of large corporations whose main object is making money 
for shareholders. Farming, small local farming, should always be a very 
important part of our country.
                                 ______
                                 
                          Comment of Linda Cox
    Date Submitted: Sunday, May 20, 2012, 3:33 p.m.
    City, State: Farmington, AR
    Occupation: Inventory, Wal-Mart Optical Lab
    Comment: I want healthy food and go to great lengths to buy 
organic. I buy local when I can. Farmers are important to me and our 
future health. Please do not take these things away from us. And please 
do not put hardship on our farmers.

Linda Cox.
                                 ______
                                 
                          Comment of Maury Cox
    Date Submitted: Sunday, May 13, 2012, 7:00 p.m.
    City, State: Shelbyville, KY
    Occupation: KY Dairy Producer/Allied Industry Ex. Dir.
    Comment: The Dairy Security Act of 2011 proposed by Congressman 
Collin Peterson, (D-MN) is based on the framework of National Milk 
Producers Federation, Foundation for the Future. This program, if 
enacted does not consider the deficit milk production areas of the 
nation including the Northeast and Southeast milk sheds.
    In the Southeast, milk is brought in to fill processors' needs 
every month of the year at the indirect expense of local producers. The 
Southeast has seen the largest percentage decrease in producer numbers 
over the last 10 years. The Dairy Security Act will exacerbate the 
problem unless the present Federal Milk Market Order rules are changed. 
It will more quickly remove the small family dairy farms from the area 
and set-up large CAFOs in their place.
    Dairy economist, Drs. Mark Stephenson and Andy Novakovic have 
analyzed the DSA and the Senate version. Here is their conclusion:

        ``Conclusions

                These calculations show what might have been from 2007 
                to 2012 had the Senate Act been in place and there were 
                no changes in producer marketings or milk prices. 
                Arguably, this presents the impacts of this policy 
                under a favorable scenario. Earlier modeling of the DSA 
                shows that participation rates make a significant 
                difference.\7\ Low levels of participation would have 
                generated margins very much like those calculated in 
                this paper. However, the reductions in payments would 
                have fallen on the few producers who did choose to 
                participate. With 100% participation, earlier modeling 
                shows a large reduction of margin volatility and little 
                impact on long-run average prices. Under higher levels 
                of participation, perhaps as much as 50% of production, 
                the previous modeling suggests even more reduction in 
                margin volatility but a lower average milk price as 
                non-participants take more complete advantage of growth 
                opportunities. Whether one judges new dairy policy as 
                ``good or bad'' for the industry, it is unavoidably 
                true that they will impact producers differently. Dairy 
                farmers, processors and policy makers should 
                thoughtfully consider expected outcomes and recognize 
                that different farmers will have different experiences 
                and that there will be both intended and unintended 
                consequences.''
---------------------------------------------------------------------------
    \7\ Nicholson and Stephenson.

    It is believed those dairy farmers that are highly leveraged will 
be required by their lenders to participate in the margin insurance 
therefore also participating in the supply management program. When 
considering the fact that over 50 percent of the nations supply of milk 
is produced by less than three percent of the producers, ultimately the 
small producers will be the ones ``balancing'' the nations supply until 
they are driven out of business. This is where this proposed 
legislation is headed.
    Please vote No on this portion of the farm bill. There are other 
options and proposals available. Take a look. Consider options that 
will not more quickly run the small family farm out of business.
            Thank you,

Maury Cox,
Shelbyville, KY,
[Redacted].
                                 ______
                                 
                         Comment of D. Sid Coy
    Date Submitted: Friday, May 18, 2012, 3:25 p.m.
    City, State: Wasilla, AK
    Occupation: Construction
    Comment: Mega farm corporations such as Monsanto have paid 
lobbyists to persuade lawmakers to vote favorably on bills that affect 
consumers. The lawmakers know nothing about the results or the actual 
harm being done by allowing the mega farm corporations to genetically 
modify foods, fish and plants. Ignorance is no excuse when voting for a 
harmful farm bill. Leave farming to farmers and not mega managers who 
are not interested in health, only the profit in the bottom line.

Sid Coy.
[Redacted].
                                 ______
                                 
                       Comment of Lowell Cpordas
    Date Submitted: Friday, May 18, 2012, 3:27 p.m.
    City, State: Lacey, WA
    Occupation: Vendor and Inventor of Farm Hand Tools
    Comment: Hon. Committee Members,

    I am most concerned about food labeling:

    1. Country of origin.

    2. Listing all ingredients including sub ingredients.

    3. Listing if the product contains GMO's.

    I would also encourage you wherever possible to make it easier for 
small farmers and producers to compete with the large firms.
                                 ______
                                 
                        Comment of Delight Craft
    Date Submitted: Friday, May 18, 2012, 12:30 p.m.
    City, State: Galax, VA
    Occupation: Retired from Counseling/Human Services Profession
    Comment: I am a retired woman who has championed local, sustainable 
agricultural methods since the 1970's. I am quite healthy and plan to 
continue to eat foods that are Fresh, Local, and produced in a 
sustainable and healthy manner . . . healthy for my body and the Earth. 
I am ashamed at the irresponsible way our country has allowed BIG 
agribusiness pervert the very basics of our food production and put 
farm families out of business, etc. I also believe that a number of 
subsidies Need To Be and Must Be eliminated, as they are either no 
longer necessary for particular crops, or they serve to continue the 
travesty of unsustainable practices by agribusiness interests that are 
not operating in ways that benefit our society.
                                 ______
                                 
                         Comment of Helen Craft
    Date Submitted: Friday, May 18, 2012, 12:45 p.m.
    City, State: Rockville, MD
    Occupation: Registered Nurse
    Comment: As a certified pediatric nurse, I see firsthand the 
effects of overweight and obesity in a growing number of children. As a 
nation, our relationship with food is in bad shape. Many kids don't 
know what non-processed food looks like and their bodies, both inside 
and out, make that clear--pediatric type II diabetes is on the rise and 
these kids are set up for a myriad of other health problems related to 
obesity. Making healthy, whole foods more accessible and affordable to 
people begins with supporting sustainable (also read organic) local 
production of food. Support of this kind of food production also 
promotes better environmental stewardship. To this end, I support all 
provisions of the Local Food, Farms, and Jobs Act (H.R. 3286), full 
funding of conservation programs such as the Conservation Stewardship 
Program, implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), and maintenance of the EQIP 
Organic Initiative.
                                 ______
                                 
                      Comment of Janice Cragnolin
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Unadilla, NY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I'm a vegetable gardener not a farmer like my neighbors, 
but I know by reducing subsidies to small farms and enhancing them for 
mega farms, our local economy has taken one hit after another that has 
put many of my neighbors out of business. Health-issues related to 
increased use of pesticides and antibiotics as well as inhumane 
livestock management are more manifest than ever.
    Want to revitalize our economy and reduce health costs in this 
country? Remove farm subsidies from mega factory farms and chemical 
companies, and re-energize the Real small farmer economy. Triple the 
benefit--farm organically and put 3 additional people back into the 
payroll as well as reduce health and veterinary costs that escalate due 
to chemical laden toxins and overused antibiotics.
    Factory farming is ultimately more costly than local sustainable 
farming and is creating both an economic crisis and an emerging health 
crisis.
    Our farm bill should set responsible policy toward sustainable, 
organic localized solutions that will guarantee our physical and 
economic survival, not jeopardize these essentials.
                                 ______
                                 
                       Comment of Geraldene Craig
    Date Submitted: Friday, March 16, 2012, 11:26 a.m.
    City, State: Greenville, SC
    Comment: Please assist organic farmers and family farms so that 
more nutritious foods will be more available and affordable for 
struggling and poor families.
    Locally grown and organic food are more likely to be picked After 
they are ripened, and ripened fruits and vegetables have the most 
nutritional content, the more nutrition in the foods we consume, the 
stronger our immune system, the stronger our immune system, the least 
like we are sick, or to be born with many ailments and disorders that 
are plaguing America's children today. Family farms are the likely 
sources of locally grown foods, locally grown foods have to travel less 
to get to the market, then to the table, the less the food has to 
travel, the more likely it is to be harvested After it is ripe, foods 
harvested After ripeness possesses the most nutrition.
    Please include in this bill a provision for vouchers that poor 
people can use to buy organic food.
    The entire country and the Federal budget will benefit in the long-
run from people having easier and affordable access to organic and 
locally grown healthier food because, the more nutritious the food 
people consume, the healthier people will be, the healthier people are, 
the less money we have to spend on healthcare, to put it simple.
    Please put provisions in this bill that require Public Schools to 
serve nutritious meals for breakfast and lunch, because even when 
parents are feeding their children healthy meals at home, if the public 
school they attend is feeding them pre-processed, chemical and additive 
laden foods, it defeats the purpose of the parents feeding their 
children healthy meals at home. Please require that soft-drink and 
unhealthy fast food venders not be allowed to sell their products in 
public schools.
    Please make the farm bill a healthier and wiser decision this time.
                                 ______
                                 
                          Comment of Jan Craig
    Date Submitted: Friday, May 18, 2012, 12:50 p.m.
    City, State: Akron, OH
    Occupation: Homemaker/Caregiver
    Comment: Please do not cut funding for the only real health option 
available! Maintain funding for organic and sustainable agriculture.
    If we want true health in this country, we would outlaw Monsanto 
and put all our efforts into real food production. Please quit soft 
killing the American public. Quit killing the innocent children!
                                 ______
                                 
                         Comment of Jason Craig
    Date Submitted: Friday, May 18, 2012, 9:29 a.m.
    City, State: Columbia, SC
    Occupation: Educator
    Comment: Please vote to move us toward a sustainable agriculture 
system. It is becoming more and more clear that rising health-care 
costs, rising fuel costs, and increasing amounts of environmental and 
social problems need to be addressed in the way we fund food 
production. Please redirect Subsidy programs toward small, sustainable 
family farms. Please also, continue support for low-income health and 
nutrition problems.
            Thanks,

Jason.
                                 ______
                                 
                         Comment of Jean Craig
    Date Submitted: Friday, May 18, 2012, 5:52 p.m.
    City, State: Fort Worth, TX
    Occupation: Retired
    Comment: I am a senior citizen. My Social Security benefits are 
very low. I depend on the SNAP program to eat. Groceries are very 
expensive, so I can't afford to eat the ``healthy'' diet recommended by 
nutritionists. I can't afford meat, and, fresh fruits and vegetables 
and milk are a rare treat for me. Please don't let the amount of my 
SNAP benefit be cut again.
                                 ______
                                 
                         Comment of Karl Craig
    Date Submitted: Monday, March 19, 2012, 8:55 p.m.
    City, State: Lubbock, TX
    Occupation: Retired
    Comment: Randy, U.S. Congress now is impotent! Congress chose this 
situation. The constitution and common sense says we now have a 
congress of fools. Use all influence to stop the latest Executive Order 
(national defense resources). Congress has the power to over-ride a 
veto. Use the tactic F.D.R. used. Go To The People: radio, TV, 
internet, written, etc. this is how you can secure enough votes to 
over-ride a veto. Make Congress work again! Get govt. out of my life. 
Was once a farmer. Out of my life. Let the free market work. Get out of 
my life. Agriculture can make it on our own!
                                 ______
                                 
                         Comment of Kathy Craig
    Date Submitted: Tuesday, May 08, 2012, 5:43 p.m.
    City, State: Palm Bay, FL
    Occupation: Unemployed
    Comment: There are a lot of people, who unfortunately are living on 
the street. Not by any fault of their own. No one should have to live 
on the streets in our country. They need food to live. By cutting back 
on money used to help these people live, you are basically saying that 
you do not care about them. How would you feel if you were in their 
place and lost your job and had no money to live and did not have a 
roof over your head. Jesus wants us to help everyone. So please do not 
cut the spending for this program, all of these people need your help. 
Thank you.
                                 ______
                                 
                       Comment of Margaret Craig
    Date Submitted: Friday, May 18, 2012, 8:19 p.m.
    City, State: Homer, AK
    Occupation: Retired
    Comment: The small farmer is an important part of the food chain 
and should be allowed to prosper as well as the giants. Organic and 
non-GMO crops are important to the health of the industry.
                                 ______
                                 
                       Comment of Kimberly Crail
    Date Submitted: Saturday, May 19, 2012, 3:11 a.m.
    City, State: Floral Park, NY
    Occupation: Executive
    Comment: The health of our people is the priority over the profits 
of chemical companies like Monsanto and Dow, who dominate our planted 
food supplies. And the factory farms who dominate and perpetrate 
horrendous suffering on the animals we then eat, feeding them poison 
and bits of other animals. Really? Real food, slow food. Cheetos are 
not real food.
                                 ______
                                 
                         Comment of Janet Crain
    Date Submitted: Saturday, May 19, 2012, 6:53 p.m.
    City, State: Meadow Valley, CA
    Occupation: Clinical Laboratory Scientist
    Comment: I did my first term paper in High School (in 1962) on the 
farm bill. I have always been amazed by the ``pork'' contained therein. 
It is time to resist Big Ag. and make a bill that truly helps farmers, 
consumers, the land and the farm workers. I support organic 
agriculture. I only buy organic produce and I grow at home whenever I 
can. Please break the stranglehold corporate agriculture enjoys on our 
food system! Please incorporate standards for Organic Agriculture, 
reduce or remove ridiculous subsidies that mainly profit Big Ag, and 
support existing laws that encourage conservation of the land for 
current and future generations. You are responsible!
                                 ______
                                 
                         Comment of Dana Cramer
    Date Submitted: Saturday, May 19, 2012, 10:46 a.m.
    City, State: Greenwood, MO
    Occupation: Stay-at-Home Mom
    Comment: I want good, clean food. Labeled food. If I'm to purchase 
a GMO product, I want to Know it's been modified. I do Not want to eat 
cloned food or irradiated food. If food is labeled then I can Choose 
what is right for my family. I am an adult and I deserve to know what I 
am putting in my body and I deserve to choose what is right for our 
family.
                                 ______
                                 
                        Comment of Lynn Crandall
    Date Submitted: Friday, May 11, 2012, 10:46 a.m.
    City, State: Cottonwood, AZ
    Occupation: Retired
    Comment: If you truly care about the people that you represent, and 
the country you live in, you will take a good look at the mess that is 
called our agriculture policy. I'm not a farmer, but I buy the ``food'' 
that is on the shelves. It's shameful that we have such poor policies 
that even other countries are banning our tainted imports!
    Let's clean up this country's farmlands and get rid of the policies 
that encourage the current shameful state of our food supply.
                                 ______
                                 
                        Comment of Neal Crandall
    Date Submitted: Sunday, May 13, 2012, 9:33 a.m.
    City, State: Springfield, OH
    Occupation: Drug Abuse Counselor
    Comment: Protect and raise SNAP and school lunch allocations. Stop 
Monsanto from strong arming Organic Farmers and increase SNAP 
utilization programs @ farmer's markets.
                                 ______
                                 
                       Comment of Joshua Cravens
    Date Submitted: Friday, May 18, 2012, 6:19 p.m.
    City, State: Monticello, NM
    Producer/Non-producer: Producer
    Type: Fruits, Greenhouse/nursery, Livestock, Specialty Crops, 
Vegetables
    Size: Less than 50 acres
    Comment: We need a Farm bill that focuses plenty of money on 
Organic, Low input, Sustainable Agriculture as it is the foundation for 
our future as Americans. Thank you for your support in this.
                                 ______
                                 
                    Comment of Jana Crawford O'Brien
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: Bradley Beach, NJ
    Occupation: Certified Oncology Massage Therapist
    Comment: Our current farming practices, with subsidies to giant 
Agribusinesses is NOT sustainable. Money and consideration need to be 
given to small/smaller famers who are producing good food in a 
chemical-free way that is safe for our bodies and the environment.
    As with all the other large, subsidized businesses in this country, 
we are facing the prospect of a collapse of the system. This possible 
crisis needs to be address Before it's too late, not when we're in the 
middle of it.
                                 ______
                                 
                       Comment of Rosalind Creasy
    Date Submitted: Friday, May 18, 2012, 7:08 p.m.
    City, State: Los Altos, CA
    Occupation: Landscape Designer, Food Writer
    Comment: I am greatly concerned that the farm bill strongly favors 
the large producers of corn and soybeans. The small organic producers 
of fruits and vegetables need help, not agribusiness--especially all 
their subsidies. Small growers need fewer restrictions and if any 
subsidies are needed for agriculture, most certainly they should be 
given to them. The obesity problem is terrible and fruits and 
vegetables are a big part of the answer.
    Thank you.
                                 ______
                                 
                         Comment of Tsandi Crew
    Date Submitted: Friday, May 18, 2012, 2:27 p.m.
    City, State: Lake Bluff, IL
    Occupation: Illustrator and Writer
    Comment: I have a list of 71 scientific papers that prove the 
tragic and disastrous results of genetically engineered seeds in our 
country and around the world. It is criminal to subsidize this 
practice. It drives up the cost of health care and it is destroying 
other healthy crops and plants, and it is killing bees. Subsidize truly 
organically grown food.
                                 ______
                                 
                        Comment of Rhonda Crider
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Calhoun, GA
    Occupation: School Bus Driver
    Comment: We need more help for the organic farmers. All the large 
companies are altering our food supply to the point it is no long fit 
for human consumption. You here every day on the news about the 
increase in diabetes and other illnesses and nobody seems to see that 
it is our food and water supply that could be triggering this. The 
organic farmers need support from the government. Now! Please support a 
bill that will allow the farmers to grow good, healthy food and also 
help to protect the environment and soil conservation!
                                 ______
                                 
                         Comment of Judy Crisco
    Date Submitted: Friday, May 18, 2012, 2:51 p.m.
    City, State: Alamosa, CO
    Occupation: Webmaster
    Comment: In the face of the obesity epidemic, the diabetes epidemic 
and the health care crises in this country it is imperative that you 
make the connection to Farm Policy.
    It is time to break free of the control of agribusiness and do what 
is right for the health (both physical and fiscal) of this country.
    I demand that you make your policy decisions based on what is good 
for the citizens and not the corporations!
                                 ______
                                 
                        Comment of Steven Crock
    Date Submitted: Wednesday, May 16, 2012, 9:37 p.m.
    City, State: Manchester, MO
    Occupation: Teacher
    Comment: As stewards of the Earth, smart farming practices include 
conservation practices of soil and water. Please support and encourage 
this practice by restoring the link between taxpayer subsidies for crop 
insurance and conservation compliance protections. As Missouri is a top 
state for soil loss and borders the Mississippi River, it is essential 
to encourage and require responsible farming practices.
            Sincerely,

Steve Crock.
                                 ______
                                 
                       Comment of Joanna Crocker
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Seattle, WA
    Occupation: Manager in Environmental Nonprofit
    Comment: I was raised on a family farm that has always used organic 
practices. In order to hand our farm down to the next generation in 
good condition and keep it that way, we need policies that protect the 
environment, organics, and family farms.
                                 ______
                                 
                         Comment of Stan Croft
    Date Submitted: Friday, May 18, 2012, 8:56 p.m.
    City, State: Council Bluffs, IA
    Occupation: Teacher
    Comment: Please consider a farm bill that subsidizes food producers 
not producers of commodities. We have the opportunity to help build a 
farm economy based on the foods that we eat and are healthy with a farm 
bill that favors food. Corn and soybean producers can use the market to 
get a fair price, and right now a price that is more than fair. Please 
spend the money wisely.
                                 ______
                                 
                        Comment of Terese Cronin
    Date Submitted: Friday, May 18, 2012, 1:20 p.m.
    City, State: San Francisco, CA
    Occupation: Sales & Marketing
    Comment: I think it is so important to get this bill right. We need 
great clean food in our stores. Enough of the sprays and other 
chemicals in our food. It is dangerous to the people who pick our foods 
and to us and our children and myself. I really do not know what it 
take to make Wash D.C. understand this. You should pull the 
Congressional Districts Rep. and see how many use organic products? 
Maybe it would be a surprise that so many do use organic product?

Terese Cronin.
                                 ______
                                 
                        Comments of James Crosby
    Date Submitted: Friday, May 18, 2012, 4:56 p.m.
    City, State: Eugene, OR
    Occupation: Horticulture Student
    Comment: I just wrote a moment ago regarding small farms and 
industrial hemp, but I also wanted to share that I think you should 
support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
    Date Submitted: May 18, 2012 4:55 p.m.
    Comment: We need a fair farm bill. One that protects the small 
farmer over the big one, and that gives small farmers a chance to get 
ahead. Big farming operations are already ``ahead'', and now we need to 
give that opportunity to small farms. Also: Support legalized 
industrial hemp for farming. It has millions of uses, and can be made 
into fuel, fiber, food, and even plastic! It has many uses. Support 
small farming over big farming, and support industrial hemp 
agriculture!
                                 ______
                                 
                         Comment of Lynn Cross
    Date Submitted: Friday, May 18, 2012, 6:05 p.m.
    City, State: El Dorado Hills, CA
    Occupation: Retired
    Comment: I fully support Food Democracy's goals and ask you to give 
much more open-minded consideration to them. Cutting or eliminating 
food programs that benefit deserving people in order to provide 
subsidies to corporate farming is just shameful pandering to big money.
                                 ______
                                 
                        Comment of Sondra Crouch
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Lambertville, NJ
    Occupation: Retired
    Comment: I live in a farming community. I see the day to day 
problems while I drive to the grocery store. I listen to the problems. 
How hard it is to find the money to start up Organic Farming . . . how 
profitable it is if you do start up. How the AgriCorps are squeezing 
out the farmers and like all corporations in this country trying to 
squeeze out the little guys. Why do the Legislators not support this 
bill? Well, do they buy groceries? Do they farm? Who cooks for them, 
either wives, or housekeepers. They do not live like we do, on the edge 
of everything, ready to fall off for any false move we make. They get 
plenty of perks in their lives . . . it is time for the 99% to get what 
we need. (Not what we deserve, they wouldn't vote for that . . . we 
only ask for what we need!) That should not take too much away from the 
1%.
                                 ______
                                 
                         Comment of Dan Crowley
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Gilbert, AZ
    Occupation: Small Business Owner-Telecommunications
    Comment: Too many times politicians don't bother to listen to the 
people. Instead they only hear the well funded lobbyist groups of 
corporate America. America belongs to the people Not the corporations.
                                 ______
                                 
                         Comment of Erin Crump
    Date Submitted: Saturday, May 19, 2012, 9:28 p.m.
    City, State: Blue Bell, PA
    Occupation: Hydrogeologist
    Comment: I would, like your farm bill to be good to the local 
farmer. Let the farmers grow and sell good, healthy food from their 
farms. Let them save seeds and not have to purchase them from large 
companies that are more about chemical spray and control than about 
individuality and taste. Let them practice organic growing so they 
don't need to dump oil-based fertilizers on the land. Hey, how about 
you subsidize tomatoes, carrots, greens, etc., instead of corn and soy. 
Thanks.
                                 ______
                                 
                         Comment of Ruth Crump
    Date Submitted: Friday, May 18, 2012, 8:12 p.m.
    City, State: Silver Spring, MD
    Occupation: Citizen
    Comment: I think it is important to support small farm efforts 
rather than large agribusiness. Small farms will in the end provide 
food which requires less chemical management, less fossil fuel use, and 
less antibiotic use. They are also able to support more community 
development via interactions between producer and consumer, a healthy 
state for all.
                                 ______
                                 
                        Comment of Connie Crusha
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: El Cajon, CA
    Occupation: Teacher
    Comment: I've been teaching organic gardening for 30 years. I am 
horrified at the chemicalization and industrialization of farming in 
this country, and the concomitant environmental degradation. In 
addition I am appalled at the human costs of pesticide laden food 
products and tainted meats which are the result of our existing system.
    We need to stop subsidizing factory farms and chemical agriculture 
and start spending money on organic practices to produce healthy foods 
for our people and the people of the world.
                                 ______
                                 
                    Comment of Christine Crutchfield
    Date Submitted: Friday, May 18, 2012, 2:08 p.m.
    City, State: Easthampton, MA
    Occupation: Professor
    Comment: Obesity levels are at a new high, healthy food is out of 
many people's price ranges, and it's often difficult for the average 
consumer to know how food was processed or where it came from. This 
farm bill can help start a slow change. More and more people like 
myself are interested in sustainably-grown produce and meats from small 
farmers. I'm lucky to live in an area where this is easy to come by. 
Many Americans aren't so lucky. Let's make it easier for the small 
farmer to be viable. Let's stop subsidizing corn and soy. Let's make it 
easier for the consumer to know how his/her food was grown. Eating 
should not be so complicated. Let's take the corporations out of it.
                                 ______
                                 
                         Comment of Johnny Cruz
    Date Submitted: Friday, May 18, 2012, 3:59 p.m.
    City, State: Hartford, CT
    Comment: I feel that it will make my life harder than it already is 
because I live in Hartford where most residents are going through the 
SNAP for help. Imagine how this will affect everyone and their 
children. This will be catastrophic to everyone's well being! To whom 
this may concern!
                                 ______
                                 
                         Comment of Lili Crymes
    Date Submitted: Thursday, May 10, 2012, 4:28 p.m.
    City, State: Atlanta, GA
    Occupation: Horticulture/Nonprofit
    Comment: SNAP and WIC dollars are important both for the people who 
purchase food with them and for the grocery stores and farmers that are 
supported by them. While I applaud changes in the system that encourage 
better nutrition such as wholesome wave and the adjustments to WIC that 
allow greater flexibility in purchasing produce, cutting spending is 
not a healthy option. Further, I think it will cost the country more in 
future health care cost. Please don't bankrupt my future with poor 
choices about current spending.
                                 ______
                                 
                      Comment of Brenda Csencsits
    Date Submitted: Friday, May 18, 2012, 2:19 p.m.
    City, State: Saint Augustine, FL
    Occupation: Retired
    Comment: It's very important to me to be able to buy locally grown 
food (vegetables, eggs, meat) where farmers do things ``the old 
fashioned way'' meaning fewer (or no) pesticides, herbicides, hormones, 
etc. Please provide more support for the people who are willing to do 
the work to provide fresh, nutritious locally grown food.
                                 ______
                                 
                          Comment of Helen Cu
    Date Submitted: Wednesday, May 09, 2012, 5:10 p.m.
    City, State: Brooklyn, NY
    Occupation: Retired Accountant
    Comment: We need a strong Farm bill to protect our farmers in 
producing affordable organic food for the good of the citizen of the 
United States especially the poor and senior citizens of this country. 
The government should help these farmers in fair competition from big 
agricultural corporations.
    Thank you.
                                 ______
                                 
                       Comment of Piliana Cuenod
    Date Submitted: Saturday, May 19, 2012, 4:46 a.m.
    City, State: Kaunakakai, HI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: We are growers following the permaculture principles and 
as such feel the need for a Bill that will honor the good, healthy, 
natural, nutritious ways of farming. That dogmatic, manic need to 
control the activities of farmers to suite the big businesses is so 
retarded and uncivilized. The big and strong undermining the freedom 
and activities of people should have been a thing passed with the dark 
ages.
    Government should be honoring and helping all types of farming and 
that should be reelected in such a Bill.
                                 ______
                                 
                        Comment of Nancy Cuffman
    Date Submitted: Friday, May 18, 2012, 12:48 p.m.
    City, State: El Cerrito, CA
    Comment: I believe that healthy food is the start for the health of 
the nation. Small farm rather than corporate agriculture, organic food 
free from harmful chemical substances. This is what makes for healthy 
food. Not mass produced food and animals.
    Thank you.
                                 ______
                                 
                      Comment of Annette Cullipher
    Date Submitted: Friday, May 18, 2012, 2:37 p.m.
    City, State: Balsam Grove, NC
    Occupation: Citizen
    Comment: I realize I am only one ordinary citizen. I am not a 
farmer, nor am I involved in the distribution of food products. I am 
just one person at the end of this production chain. I am not a 
lobbyist for the agriculture industry so I do not have the thousands/
millions of dollars to line your coffers.
    But I am the one who buys these products and feeds my family. I 
endeavor to support local sustainable farmers and I buy organic where 
possible. And I am very disturbed, and I am very angry that I cannot 
trust the products I buy because you and the others that make the 
decisions about our food production are in the pockets of the industry. 
An industry whose basic concern is not the health of the citizens who 
eat their products nor is there any concern for the health of this land 
nor is there any concern for the animals they are raising but only 
their bottom line. The corporate agribusiness has a stranglehold on our 
regulatory system and you, our political leaders.
    U.S. food and agricultural policy must focus on adopting best 
agricultural practices that put the health of citizens, land and 
farmers' livelihoods and farm workers over the interests of industrial 
agriculture lobbyists. I would like to see:

  <bullet> the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Vernon Cullum
    Date Submitted: Saturday, May 19, 2012, 2:13 a.m.
    City, State: Prescott Valley, AZ
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: Corporations, especially agribusiness corporations have 
already proven themselves to be criminally irresponsible and 
untrustworthy in their practices from the pollution they produce to 
genetically modified mentality of playing God with our food stuffs--
where profits trump all other concerns. Regardless of how food is 
produced, sustainability and the health of our soils and bodies must be 
priority one. Only practices which promote these priorities should be 
encapsulated in a farm bill. Technology has its place, but when it's 
use is corrupted by profits above all mentality, disaster is 
unavoidable, and those who suffer the most are many times those who are 
at the bottom of the economic food chain.
                                 ______
                                 
                        Comment of Molly Culver
    Date Submitted: Friday, May 18, 2012, 9:20 a.m.
    City, State: Brooklyn, NY
    Producer/Non-producer: Producer
    Type: Fruits, Greenhouse/nursery, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: As a member of the Board of Farm School NYC, a new school 
for urban agriculture that strives to nurture beginning farmers through 
training in horticulture and food justice, I wanted to share that it is 
vital that programs like the Beginning Farmers and Ranchers is not cut. 
It should remain a fully funded piece of this upcoming farm bill, and 
should receive even more funding. Cutting funds to grow new farmers is 
the last thing we should be doing when we're facing an environmental 
crisis with unknown results. We currently do not grow enough vegetables 
and fruits in this country to provide every citizen with their 
recommended daily servings. With the average age of America's farmer 
being over 50, we are in dire need of more young and energetic farmers 
who will grow the nutritious fresh food we all need to continue happy 
healthy and productive lives.
                                 ______
                                 
                       Comment of Brian Cummings
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Milwaukee, WI
    Occupation: Computer Programmer
    Comment: We deserve a farm bill that supports farmers that do not 
poison us with chemicals and GMOs. Please support organic farmers and 
small farmers.
                                 ______
                                 
                       Comment of Nancy Cummings
    Date Submitted: Friday, May 18, 2012, 2:52 p.m.
    City, State: Lakewood, CO
    Occupation: Housewife
    Comment: I want healthy food . . . I'm tired of ``GMOs'' in the 
food I eat, I don't believe it is healthy for any one. When I was 
raising my children, they ate fresh fruits and vegetables, they we're 
happy and healthy. They got very good grades in school, and became 
productive citizens when they grew up. Now, as I grew my own food, they 
now grow theirs, and feed their children wholesome and healthy food. we 
demand Organic food! It does the body good!
                                 ______
                                 
                       Comment of Thomas Cummings
    Date Submitted: Friday, April 27, 2012, 6:24 p.m.
    City, State: Merritt Island, FL
    Occupation: Retired
    Comment: Jesus very specifically tells us that we are going to be 
judged on how we treat the poor. See Mt 25:31ff. I hope you will vote 
in favor of full support for food programs for the poor.
                                 ______
                                 
                     Comment of Carolyn Cunningham
    Date Submitted: Saturday, April 28, 2012, 1:47 p.m.
    City, State: Chagrin Falls, OH
    Occupation: Retired Manager
    Comment: I volunteer for a rapid rejoicing program in Cleveland. I 
see firsthand the need for your continuing support of feeding programs 
that support children ad low income families. Supporting the needs of 
vulnerable seniors is also important to me, as well. Thank you.

Carolyn Cunningham.
                                 ______
                                 
                       Comment of Gary Cunningham
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Strawn, TX
    Occupation: Potter and Organic Gardener
    Comment: The regulatory stranglehold developing in this country is 
on the wrong track. Corporations need more regs and farmers need less. 
The very nature of a corporation dictates this. Cheap food is exactly 
that, cheap. Corporations exist to make money, products are a means. 
Farmers grow food and love the land and the work. It's not just about 
money to a farmer.
                                 ______
                                 
                      Comment of James Cunningham
    Date Submitted: Saturday, May 19, 2012, 11:46 a.m.
    City, State: San Francisco, CA
    Occupation: Actor
    Comment: U.S. Gov't support of farming must be revised to provide 
more support of organic, smaller farms and Stop subsidies to 
industrialized, GMO, and chemical-based farms.
    We are killing our soil! We are killing our future!
    How can anyone not see the devastating results of continuing in the 
present direction?
    Please Support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding of conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    We Trust In The House Committee to create a farm bill which 
benefits the success of independent growers not the interests of Big 
Ag.
                                 ______
                                 
                       Comment of Paul Cunningham
    Date Submitted: Wednesday, May 09, 2012, 3:34 p.m.
    City, State: Galveston, TX
    Occupation: Aviation
    Comment: Protect Older Americans
    Older Americans' struggles with hunger are often invisible. It's 
too easy for most people to overlook how many seniors have serious 
trouble accessing the food and nutrition they need to survive and 
thrive. Often, they are forced to make difficult decisions between 
food, medicine, or paying their utilities or rent.
    As a nation, we owe a great deal to the generations that helped 
build this country--we simply cannot allow one of our most vulnerable 
populations to suffer in silence any longer.
    I am urging Congress to pass a strong farm bill that protects 
programs like SNAP, TEFAP, and CSFP, which help provide food for 
millions of America's most vulnerable seniors.
    Congress must ensure hunger-relief programs remain protected so 
that seniors who worked their entire lives continue to have access to 
these vital programs.
                                 ______
                                 
                      Comment of Sarah Cunningham
    Date Submitted: Tuesday, May 15, 2012, 1:34 p.m.
    City, State: Corvallis, OR
    Occupation: College Educator & Community Food Activist
    Comment: I understand the need for fiscal responsibility, perhaps 
now more than ever, but as you consider the farm bill, please do not 
make cuts that would place the burden of fiscal responsibility upon the 
shoulders of the most vulnerable in our society, namely children and 
low-income people.
    Thank you in advance for standing up for those who are least able 
to stand up for themselves.
                                 ______
                                 
                         Comment of Jerry Cupp
    Date Submitted: Saturday, May 19, 2012, 7:48 p.m.
    City, State: Colorado City, CO
    Occupation: Real Estate Broker
    Comment: We are against Monsanto taking over any more of our farm 
land. Please help the family farms. Help the Organic farmers and punish 
the petrol-chemical farmers that are poisoning our land. Also, please 
be against carbon tax. Global warming is a myth, i.e., it snowed on my 
daughter at sea level in Kodiak, Alaska last week. Maybe global 
cooling, huh?
                                 ______
                                 
                 Comment of Darcie Curley, R.N., B.S.N.
    Date Submitted: Thursday, May 17, 2012, 5:49 p.m.
    City, State: Golden, CO
    Occupation: Nurse
    Comment:Dear Sirs:

    I and my family are passionate about healthy, naturally grown food 
that is grown sustainably, intelligently and with an eye toward non-
damaging, organic and smart Earth practices. We enthusiastically 
support a small local organic farm as a delivery site, believing that 
local small farmers have the ability to sustain, nurture and benefit 
their surrounding communities. Small farmers should be at the heart of 
any farm bill written. I'd like to see support in all ways for them, 
and I'm tired of having tax bill money go to huge factory farms that 
are not sustaining local people.
    I do not believe that tax subsidies should be going to vast 
concerns and giant companies, but rather to small farmers who enrich 
the lives of their communities, and bring fresh, local, healthily and 
responsibly raised and grown food that does not have to be trucked 
across vast distances. Supporting local food revives local economies, 
real people, and the planet by reducing impact and carbon footprint.
            Sincerely,

Darcie Curley, R.N., B.S.N.
                                 ______
                                 
                         Comment of Beth Curlin
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Berea, KY
    Occupation: Administrator, Writer, Gardener, Small Farm Owner
    Comment: I am a buyer at local farmer's market and Wal-Mart or 
Kroger. I feel extremely strongly that our Ag policy should reflect 
support of healthy food production. My concern is in both the 
production of food which affects the quality of health for both workers 
and consumers--anyone who breathes fresh air or drinks water. The end 
product of food should be good health and nourishment, food without 
harmful chemicals or other additives. Agencies need to regulate and 
curb any activities that do not contribute to that and support organic 
agriculture making it more prevalent and possible. More healthy, and 
humane growing and slaughtering polices also need to be strengthened. 
Profits for big corporations should not be the end.
                                 ______
                                 
                      Comment of Constance Currier
    Date Submitted: Friday, May 18, 2012, 3:05 p.m.
    City, State: Ithaca, NY
    Occupation: Retired
    Comment: Until the food supply in this country is healthy food the 
Health Care cost are going to increase to levels that cannot be met. 
Obesity, diabetes, heart problems, cancer, etc, etc will continue to 
increase as long as the representatives of the people pay more 
attention to corporate desires than they do to the welfare of the 
population. I think they think that their children, parents, spouses 
somehow are not part of the population and in this they are Wrong, 
their families will suffer along with all the rest of us.
                                 ______
                                 
                        Comment of Harvey Curry
    Date Submitted: Friday, April 27, 2012, 3:20 p.m.
    City, State: Houston, TX
    Occupation: Construction Project Mgr.
    Comment: The SNAP program is needed during this recession and 
depressed unemployment. Kids are going without meals. You need to add 
appropriations for community based gardens.
                                 ______
                                 
                         Comment of Kathy Curry
    Date Submitted: Friday, May 18, 2012, 1:37 p.m.
    City, State: Kingston, WA
    Producer/Non-producer: Producer
    Type: Fruits, Vegetables
    Size: Less than 50 acres
    Comment: Most of the produce from our farm is tended by volunteers, 
and goes directly to food banks. We also have a demonstration crop in 
train to support donation to school cafeterias, but there are many 
detailed and expensive requirements to get that done.
    In order to continue feeding the poor and working on providing 
healthy foods for our children, we need the support of organically-
savvy programs. With additional land coming available, we need help for 
new farmers to bring it into production.
    We have already made use of several of the programs in the 
following list (as provided by Seattle Tilth), and have rather depended 
on the others remaining available in our future planning:

  <bullet> the Organic Research and Extension Initiative (OREI)

  <bullet> the Local Foods, Farms and Jobs Act (H.R. 3286).

  <bullet> the Beginning Farmer and Rancher Opportunity Act (H.R. 
        3236).

  <bullet> EQIP Organic Initiative

  <bullet> Conservation Stewardship Program

    Please continue these programs in their entirety. They are 
advantageous in the support of those in most need of help.
                                 ______
                                 
                         Comment of Lori Curry
    Date Submitted: Friday, May 18, 2012, 4:29 p.m.
    City, State: Leesburg, VA
    Occupation: Chiropractor
    Comment: As an holistic healthcare practitioner, I implore Congress 
to pass laws that are favorable to local/organic/sustainable farmers 
and farming. It is Essential to the future health of human beings on 
this planet. Big interests such as ``Big-Food'' and Agribusiness Must 
change the way in which they profit from processed foods, and small, 
organic farmers need to be able to make a decent living. Please do what 
is Right, and realize that voting against the small farmer will 
ultimately be the downfall of our health and the ecosystem.
                                 ______
                                 
                      Comment of Margaret Cushing
    Date Submitted: Friday, May 18, 2012, 9:13 a.m.
    City, State: New York, NY
    Occupation: Travel Agent Slow Food Member
    Comment: We must encourage our farmers to keep producing for us. 
Through recent initiatives we have a wonderful selection at local 
organic markets and supermarkets and with all the campaigns about 
eating healthy and again obesity, we cannot do this without these 
efforts.
                                 ______
                                 
                       Comment of Robert Cushman
    Date Submitted: Friday, May 18, 2012, 5:07 p.m.
    City, State: Truckee, CA
    Occupation: Retired
    Comment: Dear Sirs

    Please act to pass real farm policy that protects the health of our 
citizens, protects the livelihood of our farmers and farm workers over 
the interests of industrial agriculture mega business. Also, we need 
strong legislation that protect and supports organic and sustainable 
agriculture. Don't cut stamps to the needy while we continue to give 
huge farm subsidies (entitlements).
                                 ______
                                 
                        Comment of Justin Cutter
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: Fairfield, IA
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery
    Size: Less than 50 acres
    Comment: Please support organic and sustainable farming programs. 
Right now our country's laws are made to support industrial ag giants 
who don't give a hoot about the livelihood of family farmers, the 
health of consumers, or the ability for the land to continue producing 
crops. They care only for short-term profits and pay lobbyists to 
protect that. Please support the American public and the American soil 
for generations to come by protecting, supporting, and expanding small-
scale sustainable farming in the USA.
                                 ______
                                 
                        Comment of Karin Cutter
    Date Submitted: Friday, May 18, 2012, 11:46 p.m.
    City, State: Mesa, AZ
    Occupation: Holistic Nutritionist
    Comment: Please consider putting the American people first.
    It has been said that by the year 2050, every person will have been 
touched by cancer.
    I for one do not want to be a part of this statistic. Please take 
our nation's health out of the hands of Agribusiness. They care not for 
the health of our country, only the health of their pocket book. Thank 
you.
                                 ______
                                 
                        Comment of Joe Cuviello
    Date Submitted: Friday, May 18, 2012, 3:19 p.m.
    City, State: Solana Beach, CA
    Occupation: Business Consulting
    Comment: We need to do less monoculture, greater support for 
organic farms, smaller farm operations located in regional areas closer 
to the consumers of the goods produced at those farms. We need to 
decrease the funding for ethanol from corn where is not a viably cost 
effective fuel to produce. In other words we spend as much energy 
making it as it generates. Therefore stop funding it and have farmers 
produce food and not fuel.
                                 ______
                                 
                           Comment of Tim Cyr
    Date Submitted: Friday, May 18, 2012, 3:50 p.m.
    City, State: Hayward, CA
    Occupation: Electrical Engineer
    Comment: Common sense needs to be applied to the regulation 
affecting our food chain. We are becoming more and more distant from 
our food source and are more and more dependent on our suppliers to do 
the right thing with regard to safety and quality and not let the 
almighty dollar make their decisions for us. Since they obviously 
cannot be left to the honor system I am counting on YOU to make those 
right decisions for Them, for Me, and for You! Would You eat \1/2\ of 
the crap that passes as food today? Then don't expect me to either!
                                 ______
                                 
                      Comment of Louise d'Carrone
    Date Submitted: Friday, May 18, 2012, 11:17 a.m.
    City, State: New Haven, CT
    Occupation: Entrepreneur, Coffeehouse Owner
    Comment: Please don't let the Mega agro Corporations taint our food 
supply further, with chemicals and other. Keep our small, organic and 
local farms healthy.
                                 ______
                                 
                       Comment of Richard D'Auria
    Date Submitted: Friday, May 18, 2012, 8:40 p.m.
    City, State: Merrimack, NH
    Occupation: Police Officer
    Comment: I support the Federal farm bill. I am a supporter of Ducks 
Unlimited and Delta Waterfowl. I travel to North Dakota every year for 
a hunting trip. The farmers in Kulm have asked me to offer support on 
this valuable program.
                                 ______
                                 
                         Comment of Tere Daane
    Date Submitted: Sunday, May 20, 2012, 7:43 p.m.
    City, State: Las Vegas, NV
    Occupation: Retired
    Comment: It is important for the future of this country to get away 
from all the chemicals and GMO's used in big ag. These chemicals and 
chemical fertilizers letch into the water we drink, cause cancer and 
bad health. The GMO's contaminate good healthy food that actually is 
sustainably, and locally grown. Please consider a good farm bill which 
supports local sustainably grown non-GMO food so families can support 
the food of America and eat healthy. Lets Not support big AG and 
continue to pollute the sky's, the water, the climate in general and 
the good organic food we have. Thanks so much.
                                 ______
                                 
                         Comment of Sarah Dagg
    Date Submitted: Sunday, May 20, 2012, 11:18 a.m.
    City, State: Crosslake, MN
    Occupation: Self-Employed
    Comment: The USDA must create a farm bill which supports best 
practices in farming today, including conservation and organic 
agriculture. Organics is the fastest growing segment of the food market 
in the last decade and insures better quality food, better soil 
management and support of smaller local farms. USDA must stop it's 
support of large agribusiness which poisons workers, air, water, and 
soil with pesticides and herbicides, wastes and ruins top soil, and is 
dependent upon large quantities of fossil fuels. Thanks for taking 
action to preserve the health of the nation through enactment of a farm 
bill which protects people and resources rather than just agribusiness.
                                 ______
                                 
                        Comment of Abbie Daigle
    Date Submitted: Sunday, May 13, 2012, 7:11 p.m.
    City, State: Oak Park, IL
    Occupation: Social Worker
    Comment: I work with people every day who work really hard to find 
employment so they do not have to rely on SNAP but without it they go 
hungry as there are not soup kitchens within walking distance and many 
have no home in which to store food. People are already going hungry. 
Please do not make cuts for some of the most vulnerable and struggling 
members of our society. Thank you.
                                 ______
                                 
                         Comment of Jim Dailey
    Date Submitted: Friday, March 16, 2012, 10:04 a.m.
    City, State: Woburn, MA
    Occupation: Occupational Therapist, Retired
    Comment: The importance of passing a farm bill that transfers 
subsidies now going to Big, Giant, Agriculture corporations to small, 
family, organic farms is paramount and essential to the restoration of 
healthy, sustainable soil and the foods it produces.
                                 ______
                                 
                    Comment of Barbara and Jim Dale
    Date Submitted: Friday, May 18, 2012, 5:53 p.m.
    City, State: Decorah, IA
    Occupation: Retired
    Comment: Here in far northeast Iowa (Winneshiek County) we have 
many successful small farmers who produce quality food of all types. We 
feel so fortunate to be able to access healthful nutritious vegetables, 
meats, dairy products, etc. It is important to us that their work be 
valued and encouraged as much as their neighbors who raise huge fields 
of commodity crops. Please include in the farm bill incentives and 
appropriate supports that correspond to the ones provided for large-
scale farmers.
                                 ______
                                 
                      Comment of Kathryn Dalenberg
    Date Submitted: Friday, May 18, 2012, 5:00 p.m.
    City, State: Valley Head, AL
    Occupation: Retired
    Comment: I am opposed to All subsidies and insurance of any kind 
for ALL agriculture. The reality of farming needs to be reflected in a 
reality cost. The national debt is partly due to too many hand-outs to 
too many companies who are greedy rather than needy. Stop the insanity.
                                 ______
                                 
                         Comment of Leta Dally
    Date Submitted: Friday, April 27, 2012, 1:07 p.m.
    City, State: Chicago, IL
    Occupation: Retired
    Comment: After being laid off in 2008 and being unable to find work 
despite education and experience, I was forced to take reduced early 
SSA payments. I barely make ends meet and although my rent and 
utilities are over 60% of my income I receive only $75 in SNAP 
benefits. This is hardly very much and if it is decreased I will 
suffer. I don't have a life. My life is staying at home, going to the 
store and doing house work. I do not eat out, I do not go to movies, I 
do not do any real socializing. What more am I suppose to give up so 
that the rich can live well and make more money? I can't find part-time 
work so I would like someone such as Rep. Ryan to tell me exactly what 
I am suppose to do or see if he would like to change places with me for 
a month.
                                 ______
                                 
                      Comment of Cathleen Dalmeida
    Date Submitted: Friday, May 18, 2012, 3:20 p.m.
    City, State: Coupeville, WA
    Occupation: Energy and Carbon Manager
    Comment: The food and Farm bill should focus on supporting food 
that improves the health of our people and our planet. Supporting a 
local food economy across the nation is important and all the 
components that go into it; support for small local farms, farmers who 
grow food people can eat/not animals, farmers markets, bringing this 
food into our schools, etc. Biodiversity is also critical. This comes 
with supporting local food economies.
                                 ______
                                 
                         Comment of Lynn Dalton
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Pittsburgh, PA
    Occupation: Food Service Worker
    Comment: Please support healthy, organic, farms! Corporate/
industrial farms are destroying our land, honey bees (which are needed 
for all natural crops), wildlife . . . our personal and environmental 
health! Please Don't let corporate profits continue to destroy our 
country . . . resist Monsanto!
                                 ______
                                 
                         Comment of Judith Daly
    Date Submitted: Sunday, May 20, 2012, 6:09 p.m.
    City, State: Waterbury, VT
    Occupation: Social Worker
    Comment: Please do everything you can to support small scale 
farming that diversifies the landscape, keeps food closer to home, and 
gives small farms the chance to compete with and be economically viable 
with the big corporate farms. It is a great economy booster in small 
states and rural areas.
                                 ______
                                 
                        Comment of Kevin Damian
    Date Submitted: Sunday, May 13, 2012, 9:18 a.m.
    City, State: Mechanicsville, VA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Rep. Eric Cantor's campaign claims to want to help small 
business prosper. Family farms, not corporate farms, are small 
businesses. They supply better quality produce to consumers and are 
necessary to insure clean, healthy food for our families. The farm bill 
must help the family farms and small farms to compete with the larger 
corporate farms. Federal programs funded by the farm bill can do more 
to help the small farms if our leaders in Washington do what is 
necessary. The voters are tired of party politics you are there to 
serve us not the other way around. Big corporations are not people they 
cannot vote they only dump huge amounts of money into campaigns and for 
lobbyists to help them make even more money. America and the middle 
class are in trouble. The Tea Party members/supporters are out of 
touch, ignorant, racists and paranoid. They do not represent the 
majority of America. Congress and the Senate need to work with one 
another to solve the problems we are facing. Help us by passing a farm 
bill that will keep farms operating.
                                 ______
                                 
                        Comment of Lauren Damman
    Date Submitted: Friday, May 18, 2012, 3:01 p.m.
    City, State: Minneapolis, MN
    Occupation: Mother, Photographer
    Comment: Keep our food supply and the environment safe for present 
and future generations. Cancer and major disease is on the rise! You 
can't spend your money if you are dead.
                                 ______
                                 
                     Comment of Kat Dancer Schwartz
    Date Submitted: Friday, May 18, 2012, 7:36 p.m.
    City, State: Hot Springs, AR
    Occupation: Retired
    Comment: As a very healthy 66 yr. old, I am healthy because I eat 
healthy . . . local, organic food is one of the best ways to stay this 
way. Subsidies to agri-corp businesses are such a waste, because they 
are not only rendering unhealthy products, but they are ruining the 
sacred land they corrupt. Profit is their only motive for what they do. 
there is No commitment to healthy products, the animals they ``grow'' 
are sicklier and sicklier (just as so many citizens are), foods are 
refined and unhealthy (oh, but they are cheaper than ``real food'') 
there is little thought on their executives minds as to what they are 
contributing to the future, whereas a farmer who loves the land and 
assists Nature in producing ``good food''has a stake in how the future 
will judge his work. so many healthy problems stem from the food that 
so many Americans now eat, high fructose corn syrup happily invades a 
multitude of products which never had it even 20 yrs. ago, medical $$$ 
and issues are spiraling out of control . . . solutions abound, but it 
with those who keep a sacred trust with the land and the animals we are 
here to steward. For those of you Bible thumpers, shame on you for 
forgetting the parts of ``God's wisdom'' when speaking on health and 
Real wealth . . . pick and choose at your own demise. Pink slime is 
only one of the awful things you and yours are eating.
    Get your subsidies straight . . . support those farmers and 
producers who support health, humane practices in raising animals, and 
respect and integrity for the Earth and Her treasures . . . drop 
subsidies for Monsanto, Cargill, Tyson, and other despoilers and start 
subsidizing those farmers whose food you probably prefer to eat, 
whether you say so or not.
                                 ______
                                 
                       Comment of Jessica Daniels
    Date Submitted: Wednesday, May 02, 2012, 11:17 a.m.
    City, State: Mystic, CT
    Occupation: Student
    Comment: Please protect the Supplemental Nutritional Assistance 
Program. The number of people depending on SNAP has increased by 60% 
from 2007 to 2010. I know that you are committed to our community's 
food security and hunger reduction through your support for No Kid 
Hungry summer lunch program, and I want to express my support and urge 
you to keep SNAP strong because it provides year-round vital support 
for our community. SNAP is 80% of the farm bill budget and as such must 
demand significant political value and consideration. Since the purpose 
of SNAP is to supplement nutrition, improving health through adequate 
and accessible food, the farm bill should expand Farmers Market 
Nutrition Programs and Community Food Programs that work toward this 
goal and support our local food economy, environment, and initiative. 
Many critics claim that SNAP is a government ``handout,'' but not only 
is it a crucial aid program, it generates $1.73 in economic activity 
per $1 spent. Imagine how this could spur and support our local farms 
and economy if SNAP could be used at farmers markets and toward 
community food projects! I would like to see a farm bill that 
recognizes this value and supports it in full. I think this goes hand-
in-hand with increasing funding for New Farmer Programs because the 
average farmer age is drastically increasing while Connecticut 
agricultural land disappears toward development, as well as market 
support for small- and medium-scale farmers. How can farmers in New 
London county compete in a market dominated by corporate control? The 
farm bill has the power to limit such corporate reign and refine 
subsidy support, to ensure that our farmers can feed our community 
healthy, affordable food. Thank you.
                                 ______
                                 
                        Comment of M.A. Daniels
    Date Submitted: Sunday, May 13, 2012, 9:41 p.m.
    City, State: Oak Park, IL
    Occupation: Retired
    Comment: Please, please do not approve the bill to cut SNAP. It is 
crucial for the well being of too many of our citizens who are facing a 
very difficult time. If something really needs cutting, then I suggest 
it be foreign aid or even congress' salary/benefits. We voted you in to 
office to look out for us, but it seems we are always the only ones to 
suffer. My parents taught us that we should take care of home 
``first''. Don't sacrifice what your ``home'' needs in favor of someone 
else.
                                 ______
                                 
                        Comment of Amy Danielson
    Date Submitted: Friday, May 18, 2012, 9:35 p.m.
    City, State: Portland, OR
    Occupation: Student
    Comment: Our food production system is the core of our nation. By 
bolstering sustainable practices now, we can invest in a prosperous and 
vital future for generations to come.
                                 ______
                                 
                       Comment of Teri Danielson
    Date Submitted: Friday, May 18, 2012, 9:54 a.m.
    City, State: Gonvick, MN
    Occupation: Nurse
    Comment: Please continue to maintain and increase nutrition 
programs especially in the schools where most of the time that's the 
only good meal they get during the day. Also continue to maintain the 
family farm--necessary part of the economy and society as a whole.
                                 ______
                                 
                     Comment of L. Renee Dankerlin
    Date Submitted: Thursday, May 17, 2012, 12:50 p.m.
    City, State: Cambridge, MA
    Occupation: Local and Regional Development Policy Planner
    Comment: Sustainable agriculture and support for small food 
producers could be significantly strengthened were this objective to be 
achieved by incorporating diversity and inclusion promoting African-
American, Latino and Asian participation in economic development 
through supplier diversity initiatives across sectors (e.g., 
transportation, housing). These suppliers, including small farmers, 
could be attracted through Federal, state and local procurement 
processes. The strategic approach I propose can promote job creation 
and job growth along with healthy eating and life-styles, all of which 
can foster viable and sustainable communities. It could also foster 
STEM education and learning from the natural world.
            Sincerely,

L. Renee Dankerlin.
                                 ______
                                 
                        Comment of Deb Danneman
    Date Submitted: Thursday, May 10, 2012, 2:44 a.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: Having retired from my state's welfare program that 
administered food stamps, I can tell you that the need in Pima County 
is dire. Cutting the food stamp program, as this bill suggests, is an 
invitation to future adults without the brain power to achieve self-
sufficiency. Cutting FS to the disabled, who include our former 
military is a disgrace to their service to our country. Please continue 
to support our country's farmers so they can continue to feed not just 
my community, but every community in these United States.
                                 ______
                                 
                        Comment of Janis Dappert
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Winchester, IL
    Occupation: Museum Coordinator
    Comment: It's time to look at the process of growing food as the 
means to nourish not only ourselves but also our living planet. Each 
year tons of pesticides and herbicides are dumped on our farm fields to 
create a sterile barren ground on which to grow GE crops. Those crops 
are the basis of our food supply, and right now they are poison! The 
reason for so much cancer and other disease. It is time to come alive 
and reject the poisonous corporate agriculture, come back to the 
organic way of growing food that promotes real health and vitality for 
all of us on the planet.
                                 ______
                                 
                        Comment of Linda Darnall
    Date Submitted: Sunday, May 20, 2012, 6:05 p.m.
    City, State: Sebastopol, CA
    Occupation: Seamstress
    Comment: I'd like to voice my support for Hemp farming in America. 
Recently, House Bill 286, which was struck down, would have created a 
process through which farmers could apply to grow hemp and then be 
vetted by state officials. If applicants passed a background check, 
they would pay a fee to be registered to grow hemp.
    Hemp is a wonderful source of vegetable protein, and would improve 
our land and water because it uses less chemicals to produce than 
cotton. Also, The USDA Bulletin #404 concluded that hemp produces four 
times as much pulp with at least 4 to 7 times less pollution. . . . 
Hemp can also produce biofuel and ethanol (better than corn).
            Thank you for allowing me to comment on this forum,

Linda Darnall.
                                 ______
                                 
                    Comment of Debra Darner-Redburn
    Date Submitted: Friday, May 11, 2012, 2:22 p.m.
    City, State: Osawatomie, KS
    Occupation: Accounting Clerk
    Comment: I take care of many individuals with disabilities. Food 
Stamps are so important to these individuals who only receive SSI or 
SSDI incomes. After paying all of their living expenses, personal care 
items, doctor dental and eye care costs, monthly obligations, targeted 
case management, transportation costs, haircuts, some activities, food 
stamps are considered income for all who receives assistance. If you 
take away their benefits they are less likely to be able to afford 
needed items, that we take for granite every day. We budget their money 
to the penny. The cost of groceries has went through the roof. But 
people with disabilities went without many cost of living raise for (4 
years) the letters from SS stated there was not a cost of living 
increase, until this year. You have got to be kidding. Our government 
seems to be able to give help to countries and we are not taking care 
of our own people. I am at an outrage! Insurance Companies continue to 
sky rise where people in our country are insurance poor. Doctors will 
see you without insurance but the care is not as good as if they can 
bill for services. Americans are tired of receiving less and less. 
Disabled individuals are hurting the most and they are unseen people. 
Our Senator Brownback wants to pass managed care so the insurance 
companies can make a lot of money what does it do to our individuals 
care? I cannot see the top so called 3 insurance companies coming and 
taking care of them let alone a simple visit. They are like a guardian 
without having to complete their agreement of involvement with 
individuals. What more is our government and state representatives 
going to do to us? Let all government representatives live on 694.00 a 
month! Rent, utilities, groceries, transportation, personal care, 
doctor, dental, eye and pharmacy costs. This has to stop, Stop Taking 
Away From Those Who Need It! Begin By Cutting Officals Making Changes 
To Their Incomes. Purchase Your Own Insurance, Groceries, Utilties, 
Medical, Do With A Car, Do Without Clothes, Go Without For Awhile, Step 
Into Our Shoes! See How Far You Get. You will need a payee to manage 
your finances due to not being able to live within your means! Keep 
Food Stamps going for all who need them! Post this Print this get the 
word out!
                                 ______
                                 
                        Comment of Susan Darrow
    Date Submitted: Friday, May 18, 2012, 3:00 p.m.
    City, State: Woodstock, NY
    Occupation: Craftsman, Artist
    Comment: By legislating against the small farmer in favor of giant 
agribusiness, you could endanger our whole food system. History has 
proven monoculture of any species can lead to extinction of that 
species. Common sense leads to the conclusion that small independent 
growers promote multiple strains and protect our food supply, not to 
mention improve our economy. The benefits of organic farming is also 
uncontested, keeping regulation simple to aid the small farmer will 
never touch the power and over reach of big agribusiness, but their 
greediness to control the world's food supply could be the downfall of 
us all.
                                 ______
                                 
                         Comment of Ranjna Das
    Date Submitted: Tuesday, May 15, 2012, 12:49 p.m.
    City, State: Marlton, NJ
    Occupation: Professional
    Comment: Before you vote to eliminate funding which helps our poor 
obtain food, I'd like you to go a day without food. No one wants a 
handout but when it comes to food, it's a matter of survival.
                                 ______
                                 
                      Comment of Alegra Dashielle
    Date Submitted: Friday, May 18, 2012, 10:03 p.m.
    City, State: Oakland, CA
    Occupation: Disabled
    Comment: It is time to end subsidies to big agriculture. Instead, 
we should put our money in to supporting small sustainable farms, 
especially organic, and making healthy food affordable to everyone.
                                 ______
                                 
                       Comment of Riley Davenport
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: San Diego, CA
    Occupation: Publisher
    Comment: The farm bill should support all food farmers, not just 
large industrial farms. More support should be available to small 
family farms including very small organic farms that produce high 
quality food for citizens all over the country. We need it to support 
healthy food for our citizens and sustainable farming practices for our 
planet. We need to help feed the less fortunate with healthy, fresh 
food (fruits and vegetables).
                                 ______
                                 
                        Comment of Soni Davidow
    Date Submitted: Friday, May 18, 2012, 2:22 p.m.
    City, State: Huntington Station, NY
    Occupation: Social Worker
    Comment: Please support sustainable and organic farming practices. 
It's better for the Earth, the animals, small struggling farmers and 
the health of Americans. It's about time congress stopped supporting 
the corporate interests of agriculture and do what's right for the 
majority.
                                 ______
                                 
                      Comment of Kristina Davidson
    Date Submitted: Friday, May 18, 2012, 9:14 a.m.
    City, State: Bend, OR
    Comment: his has nothing to do with my opinion. I'm a U.S. citizen 
and one who is concerned about clean, healthy food and how it affects 
both our health and the health of the entire planet.
    Please . . . stop GMO's, support bio-diversity and organic farming. 
This is a critical issue. We are what we eat. Want to solve the health 
care crisis? Pay attention to who is controlling the food, in every 
aspect--from seed to marketing. Thank you. A healthy America is a 
strong America. We can again lead the world--ethically and with 
compassion.
                                 ______
                                 
                      Comment of Sheilah Davidson
    Date Submitted: Friday, May 18, 2012, 1:12 p.m.
    City, State: New York, NY
    Occupation: Policy Program Manager, School Food FOCUS
    Comment: School Food FOCUS, a program of Public Health Solutions, 
is a national collaborative that leverages the knowledge and 
procurement power of large school districts to make school meals 
nationwide more healthful, regionally sourced, and sustainably 
produced. FOCUS aims to transform food systems to support students' 
academic achievement and lifelong health, while directly benefiting 
farmers, regional economies, and the environment. We work most directly 
with school food service professionals and their district partners 
outside organizations), currently in 33 large districts, representing 
over 4 million children. In recent years, School Food FOCUS and its 
stakeholders and allies have played key roles in developing and 
supporting policies and programs at USDA and via the Healthy, Hunger-
Free Kids Act (CNR), that serve our missio?[ fully understanding that 
changes in supply chains serving large districts can benefit all 
districts.
    The farm bill, like the CNR, provides a key opportunity to make 
changes that can transform school food systems. In fact, there is a 
history of changes in the farm bill leading to modifications in the 
CNR, and vice versa. For example, FOCUS allies introduced into farm 
bill debates the concept of allowing geographic preferences (GP) in 
school food procurement which was adopted in the 2002 Farm Bill. These 
groups also supported Farm to School programs in the 2004 CNR. The 2008 
Farm Bill further supported GP, extending voluntary application by 
schools for GP to all child nutrition programs and included funds for 
fruit and vegetable snack programs, among other programs. Mandatory 
funding and improved language for Farm to School programs followed in 
the 2010 CNR bill.
    The following policy recommendations were guided by and vetted with 
FOCUS stakeholders through many rounds of input and revision. The 
recommendations have been further refined through conversations with 
allies such as the National Sustainable Agriculture Coalition, the 
Community Food Security Coalition, the National Farm to School Network 
and the Rural Coalition. In short, they support a farm bill that 
increases access to whole and minimally processed foods for schools, 
and support for regional food hubs that address the unique needs of 
school food service. FOCUS also supports advocacy efforts of allied 
organizations that are aligned with our mission. These include food 
access issues for low-income communities, such as protecting full 
funding for the Supplemental Nutrition Assistance Program (SNAP), SNAP-
Ed, the Community Food Programs (CFP) and the 2501 Outreach and 
Assistance Program for Socially Disadvantaged Farmers and Ranchers, all 
of which improve food access for low income communities.
    Specific recommendations to support our priorities include:

  <bullet> Amending Section 32 of the Act of August 24, 1935 to clarify 
        that one purpose of the funds is to support local and regional 
        agricultural market development.

  <bullet> Reauthorizing programs, including those in Food and 
        Nutrition Service, Rural Development, Agricultural Marketing 
        Service, and National Institute for Food and Agriculture, that 
        support local and regional school food supply chain 
        improvement.

  <bullet> Promoting collaboration, coordination and innovation among 
        existing USDA programs, including those that provide technical 
        and financial resources to farm to institution initiatives.

  <bullet> Keeping the definition of ``local'' in the hands of local 
        policy makers. Because living, integrated food and agricultural 
        systems intersect with social, political and economic systems 
        in many different ways, a Federal ``one size fits all'' 
        definition of local is bound to be an uncomfortable, if not 
        outright damaging, ``fit'' for many areas.

    Thank you for the opportunity to submit these comments.
                                 ______
                                 
                        Comment of Manny Davila
    Date Submitted: Friday, May 18, 2012, 10:29 a.m.
    City, State: San Antonio, TX
    Occupation: Business Owner
    Comment: I support the small farmer and am against big companies. I 
will not support big companies that cut corners all the time. Do what 
is right and not what is profitable.
                                 ______
                                 
                       Comment of Adrianne Davis
    Date Submitted: Friday, May 18, 2012, 3:29 p.m.
    City, State: Santa Barbara, CA
    Occupation: Activist/Volunteer
    Comment: Good Day,

    Closely tied to urban farm (Fairview Gardens-Goleta) for 24 yrs. & 
on Brd. for 12. Family still farming since 1850 in Midwest.
    Agriculture and its strong, ancillary partners in the U.S. are very 
largely in the wrong hands.
    Rather than raising food for the good health of the nation and 
beyond these mega-companies are raising ``food'', meats, produce and 
seeds that have little real food value and are in fact, harmful, 
causing sicknesses and putrefying the Earth and waters.
    If we purchase their products, we are injecting hormones, 
antibiotics and toxins that have no business in our bodies or our 
environment.
    And we give them money for it. That's their simple goal.
    Ethics has nothing to do with the dynamic.
    We need to clean house and build trust with capable, honest and 
dedicated leaders, not with lobbyists doing the bidding for the food 
business cartels, poisoning the FDA and all those they touch, our 
public schools, for instance, supermarkets and restaurants for another.
    We need to bring good, healthy food, raised sustainably to our 
tables on the broadest base.
    We must stop raising sick people for the medical/pharmaceutical 
businesses to profit on in this chain of harm.
    We must change our priorities here in this country and stop 
negatively affecting other countries with our malice of forethought. 
High profit has no healthy future for this planet but adds to the 
building syndromes of premature and agonizing death.
    That is not the pretty picture I want everyone to enjoy but another 
where delicious and clean food is the best preventative medicine there 
is and one of the significant joys of life.
            Thank you,

A.A. Davis,
California.
                                 ______
                                 
                         Comment of Alice Davis
    Date Submitted: Friday, May 18, 2012, 3:38 p.m.
    City, State: Wilmington, DE
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: As a consumer and as a part-time farmer, I am very 
concerned that farm policy be fair to small farmers. Farm policy over 
the past few decades has been weighted in favor of very large 
industrial farms. We need a system in which consumers can get locally 
grown food, growers can get a fair price that doesn't depend on 
subsidies for a few favored crops, and we can improve our living 
environment by decreasing the amount of fossil fuels and toxic 
chemicals that we use. Also, please preserve nutrition assistance 
programs that are so necessary for families experiencing hard times.
                                 ______
                                 
                        Comment of Carolyn Davis
    Date Submitted: Friday, May 18, 2012, 4:59 p.m.
    City, State: Chattanooga, TN
    Occupation: Landscaper
    Comment: Please quit subsidizing American Simulated Food Products. 
Our nation is over budget and overweight. Let farms deal with supply 
and demand like Some other businesses do. If the citizens weren't 
giving their dollars to subsidies they would have more to spend on real 
food.
                                 ______
                                 
                         Comment of D.J. Davis
    Date Submitted: Friday, May 18, 2012, 5:14 p.m.
    City, State: Cedar Falls, IA
    Occupation: Retired Grant Writer
    Comment: Connecting eligibility for crop insurance subsidies to 
conservation compliance is fiscally responsible and ensures public 
subsidies for farmers insurance premium payments align with the 
public's interest in basic conservation of our soil and water--and our 
wildlife and botanical diversity (which keeps our Pollinators alive and 
well).
                                 ______
                                 
                      Comment of Diana Verne Davis
    Date Submitted: Friday, May 18, 2012, 2:12 p.m.
    City, State: Novato, CA
    Occupation: Retired School Worker (Computers)
    Comment: Please support small independent farmers not giant 
agribusinesses; support the banning of GMO's; support the banning of 
Bayer's horrible bee killing pesticide and other harmful pesticides and 
practices that kill beneficial insects and animals.
                                 ______
                                 
                      Comment of Pastor Dick Davis
    Date Submitted: Wednesday, April 11, 2012, 2:06 p.m.
    City, State: Lordsburg, NM
    Occupation: Pastor; Hunger Relief Provider
    Comment: Please fund the farm bill to include an increase in 
funding for TEFAP, SNAP, etc. With the state of the economy, more and 
more families are dependent on subsidies to put food on the table. 
Hunger relief should be our top priority.
                                 ______
                                 
                       Comment of Karen K. Davis
    Date Submitted: Friday, May 18, 2012, 3:19 p.m.
    City, State: Petersham, MA
    Producer/Non-producer: Producer
    Type: Field Crops, Fruits, Livestock
    Size: 151-300 acres
    Comment: I run a farm that produces organic hay & lamb, grass fed 
beef, apples & cider & occasional vegetables. If we are going to change 
our destructive health and environmental habits and survive the 
economic downturn, we have to support small farms, local food supplies 
and community enterprises like small cooperatives. Please listen to the 
voices of small farmers.
            Thank you,

Karen K. Davis.
                                 ______
                                 
                         Comment of Kathy Davis
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Grand Junction, CO
    Occupation: Natural Health Instructor/Consultant/Minister
    Comment: More small farms growing clean organic food for people and 
animals is needed for future generations . . . look to the future many 
generations out before making a decision.
                                 ______
                                 
                        Comment of Katrina Davis
    Date Submitted: Friday, May 18, 2012, 7:13 p.m.
    City, State: Montrose, CO
    Occupation: Unemployed
    Comment: I need to eat organic food for my health. Any Farm Aid 
bill should support Real Organic food on small farms, and urban 
agriculture. So we can start growing food in our own neighborhoods 
which is what needs to change and happen.
                                 ______
                                 
                         Comment of Liora Davis
    Date Submitted: Friday, May 18, 2012, 5:47 p.m.
    City, State: Plantation, FL
    Occupation: Artist/Art Teacher
    Comment: Please support small farms and organic farming. We must 
become a more sustainable society in order to maintain life we know it 
on this planet. Thank you.
                                 ______
                                 
                        Comment of Marilyn Davis
    Date Submitted: Friday, May 18, 2012, 4:49 p.m.
    City, State: San Jose, CA
    Occupation: Technical Trainer
    Comment: Please support organic farms as much as possible. Please 
tax agribusiness as much as possible. Please place any barriers you can 
to genetic modifications.
    Please allow well-labeled raw dairy products.
    It's up to you to save the Earth for future generations.
                                 ______
                                 
                         Comment of Mary Davis
    Date Submitted: Sunday, May 20, 2012, 10:28 a.m.
    City, State: Bonham, TX
    Occupation: Clergyperson
    Comment: Please pass a healthy farm bill; one that will address the 
needs of Texas consumers for a healthy, affordable diet. With the cuts 
in SNAP benefits low income Texans are left with a high starch low 
vegetable diet which contributes to obesity and diabetes. A single bell 
pepper costs a dollar. Other fresh fruits and vegetables are out of 
reach except as special treats, too. Lean meat has gone so high that we 
just use it as an occasional seasoning, not as an element of the meal. 
I urge you to make the nutritional needs of Texans a priority when you 
consider the next farm bill. Thank you.
                                 ______
                                 
                         Comment of Nancy Davis
    Date Submitted: Friday, May 18, 2012, 1:52 p.m.
    City, State: Virginia Beach, VA
    Occupation: Self-Employed
    Comment: Please, we need Real Food more available at lower prices. 
Processed foods are at the heart of obesity, therefore heart disease, 
diabetes, cancer and many other medical problems.
                                 ______
                                 
                       Comment of Patricia Davis
    Date Submitted: Thursday, May 10, 2012, 2:05 p.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: Please do not forget the thousands of people who depend on 
food programs to help them survive day to day, even in our great 
country, people are going without daily food, we need a strong farm 
bill.
                                 ______
                                 
                         Comment of Rian Davis
    Date Submitted: Sunday, May 20, 2012, 4:14 p.m.
    City, State: Evanston, IL
    Occupation: Teacher
    Comment: Food needs to be grown sustainably and in such a way that 
cares for the environment, the producers and the consumers. Giant 
agribusiness is not the way to go--it is not safe or healthy for the 
animals, crops or food producers, and it has had a devastating affect 
on our diet. We need to stay in balance with our health, our economy, 
and with the Earth, and that may be complicated but it is possible. The 
importance is too great and the cost is too high not to take better 
responsibility for producing safe, affordable, and healthy food that is 
available to all on a smaller scale.
                                 ______
                                 
                         Comment of S.K. Davis
    Date Submitted: Friday, May 18, 2012, 9:08 p.m.
    City, State: Britol, CT
    Occupation: Retired
    Comment: Stop subsidizing factory farming. Give preferential tax 
and no-interest loan treatment to family farms and criminalize GMO 
seeds, crops and foods.
                                 ______
                                 
                         Comment of Terry Davis
    Date Submitted: Friday, May 18, 2012, 10:13 p.m.
    City, State: Albuquerque, NM
    Occupation: Public Relations
    Comment: Do Not take money out of the Food Stamp program while 
giving needless subsidies to corporate farms. Keep organic crops truly 
organic and do Not give in to biologically engineered foods. Support 
people and their needs over corporations and their greed.
                                 ______
                                 
                   Comment of Ronald G. Davis, Ph.D.
    Date Submitted: Sunday, May 20, 2012, 4:46 p.m.
    City, State: San Francisco, CA
    Occupation: Writer, Ph.D. Ecological Aesthetics
    Comment: Organic food is healthier and should also be called 
ecological food. In that the production of healthy food without 
synthetic chemicals. inputs pesticides and toxic chems is healthy not 
only for the workers, that is those underpaid farm workers but also for 
the environment the ecology and the rest of us.
    Pesticide'd agriculture and chemically treated foods is a danger to 
health of those consumers you might represent.
                                 ______
                                 
                       Comment of Catherine Davol
    Date Submitted: Saturday, May 19, 2012, 7:16 p.m.
    City, State: Roseburg, OR
    Occupation: Homemaker
    Comment: Please continue to support organic farmers. Our health and 
future depend on it. Please do not cut funding from Organic farmers. 
When will the research be enough that conventional pesticides are 
destroying our planet, please stand up to Monsanto!
                                 ______
                                 
                         Comment of Sarah Davol
    Date Submitted: Friday, May 18, 2012, 11:35 p.m.
    City, State: Teaneck, NJ
    Occupation: Musician
    Comment: Please support small time farmers and those who farm 
organically and who don't grow genetically modified produce. We need to 
keep this country healthy. This is so very important for the future of 
our country's food supply.
                                 ______
                                 
                    Comment of Daaiyah Dawan-Newborn
    Date Submitted: Friday, May 18, 2012, 9:19 a.m.
    City, State: Little Rock, AR
    Occupation: Business Owner
    Comment: Health is the most important asset we can have. It's 
important to the survival of people to keep our food safe and free from 
the greed of some to line their pockets with money at the expense of 
present and future generations.
                                 ______
                                 
                        Comment of Hazel Dawkins
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Greenfield, MA
    Occupation: Editor, Writer
    Comment: It is vital that we consider in appropriate ways our small 
farms. Their work is vital & they need our support. Remember, no farms, 
no food. I value the small farms in my area--please help them.
                                 ______
                                 
                        Comment of Nancy Dawley
    Date Submitted: Saturday, May 19, 2012, 8:09 p.m.
    City, State: Cincinnati, OH
    Occupation: Retired
    Comment: Corporate hunger for ``profits'' should not take 
precedence in the farm bill over food for Americans. Subsidies should 
never be increased while food stamps are decreased. These subsidies are 
not being used to build jobs or food quality, rather the opposite.
    I also support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding of conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Small farms create jobs, protect the land, provide more nutritious 
food. Provisions for helping these farmers' businesses should take 
precedence over money for large agribusinesses.
                                 ______
                                 
                        Comment of Shelton Dawn
    Date Submitted: Friday, May 11, 2012, 9:15 p.m.
    City, State: Luther, OK
    Occupation: Fledgling Farmer
    Comment: Please listen to family farms who are real people trying 
to provide our neighbors with safe real food. The corporate interests 
have had control too long, and the health of Americans has suffered.
    We demand a Fair farm bill that levels the playing field for small 
and family farmers.
    Sustainability and environmental stewardship are important to small 
and family farms. We farm where we live, eat and make a living. Please 
use Common Sense . . . we don't have millions to give your campaign 
coffers, but we are watching and concerned, and want to help you. 
Please don't ignore us.
                                 ______
                                 
                       Comment of Lorenzo Dawson
    Date Submitted: Saturday, May 19, 2012, 6:33 p.m.
    City, State: Roanoke, VA
    Occupation: Real Estate
    Comment: I strongly oppose GMO's and all Monsanto strong-arm 
tactics to control our food supply. I oppose subsidies to grow certain 
crops like soybeans and all other Monsanto GMO crops. Please set our 
country free from the awful course of food production we are on now.
                                 ______
                                 
                         Comment of Hannah Day
    Date Submitted: Friday, May 18, 2012, 10:37 a.m.
    City, State: Petaluma, CA
    Occupation: Student
    Comment: Our planet, our health system, our people, can no longer 
support a food system that renders land-raping crops cheap to produce, 
and therefore cheap to consume. The costs are hidden, but they are 
there, and will make themselves apparent soon enough, when our soils 
can no longer produce the cash crops, and when the current generation 
is laid to rest before its parents.
                                 ______
                                 
                          Comment of Karen Day
    Date Submitted: Wednesday, May 16, 2012, 11:51 a.m.
    City, State: Floyd, VA
    Occupation: Community Organizer
    Comment: I want a farm bill that makes healthy food widely 
available for all people. Please preserve food stamp benefits and 
availability. In our county more and more people need food stamps. Our 
non-profit group makes fresh food available to all our neighbors 
because there is a great need. If the farm bill is really helping small 
farmers more fresh food will be available locally. YES beginning farmer 
and rancher program, No Conservation Program Cuts. Let's make the farm 
bill good for All not just industrial farmers.
                                 ______
                                 
                         Comment of Liz Dayvie
    Date Submitted: Saturday, May 19, 2012, 6:27 p.m.
    City, State: Hicksville, NY
    Occupation: Diagnostic Medical Sonographer
    Comment: I have nothing to gain from the field of agriculture or 
agribusiness other than the effects it has on the human body and on the 
environment. The agricultural policy of this country has been terribly 
handled over the past century and needs to be reformed.
    Not only are our politicians out of touch with the values of the 
American people, but corporate agribusiness has a stranglehold on our 
regulatory system and our political leaders.
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    I support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286).
    I support fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    I support maintaining the EQIP Organic Initiative.
    I hope you do the right thing for my fellow citizens, the 
environment and generations to come. Change must start somewhere. Why 
not now?
                                 ______
                                 
                        Comment of William Dazey
    Date Submitted: Friday, May 18, 2012, 8:20 a.m.
    City, State: Houston, TX
    Occupation: Busboy
    Comment: I believe that organic is the only sustainable way of 
living. Synthetic chemicals and genetically modified organisms are 
detrimental to the ecosystem and the future of all beings here on 
Earth. If one ponders over the future it is obvious that organic is the 
only sustainable way to continue the human race.
                                 ______
                                 
                       Comment of Natalia de Cuba
    Date Submitted: Friday, May 18, 2012, 4:33 p.m.
    City, State: Massapequa Park, NY
    Occupation: Lecturer and Writer
    Comment: Dear Representatives,

    As a voter, a consumer and parent, I would like to see real reform 
on the way we produce food for human and animal consumption. I buy 
organic and local when available and affordable and grow food in my 
garden. I would like to see a system in which real, healthy food is 
readily available for all American citizens and which nurtures and 
sustains our soil and environment, as well as small business (i.e., the 
small farmer, the small market). Currently, we are subsidizing--at 
great cost--too few and too large farms which use too many chemicals to 
grow a set of crops that is too homogeneous. Let's get this right 
please!
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

            Thank you.

Natalia de Cuba.
                                 ______
                                 
                      Comment of Beatrix de Greve
    Date Submitted: Friday, May 18, 2012, 12:40 p.m.
    City, State: Milford, OH
    Occupation: Retired
    Comment: We need Real reform, not cutting off funds for 
conservation and organic food. There's No need to ``please'' the 
Agribusiness. Because they don't give a hoot what happens to the 
people.
                                 ______
                                 
                       Comment of Haley De Korne
    Date Submitted: Sunday, May 20, 2012, 8:47 p.m.
    City, State: Philadelphia, PA
    Occupation: Education Consultant/Curriculum Developer
    Comment: I am writing to express my concern that the farm bill 
needs to be amended to provide the greatest good to the greatest 
number--in other words it needs to stop subsidizing large industrial 
agribusinesses, and provide meaningful support to small and medium 
farms and operations, and new initiatives. Locally-produced food has 
numerous benefits for the economy, for consumers, and for the long-term 
well-being of our country through avoiding the environmental 
degradation (erosion, mineral depletion, pesticide build-up, etc.) and 
health risks (tainted products, hormone & pesticide infiltration of 
watersheds, etc.) that industrial agriculture inflicts. As a young 
professional in an un-related field (education), this issue is 
significant to me because I want to establish my home and career in a 
country where I can obtain quality food products and trust the food 
that is sold in our stores. At the moment, that is not always the case 
here. Please support the Local Foods, Farms and Jobs Act (H.R. 3286), 
as well as maintaining funding for conservation and organic 
initiatives. Food is an essential part of quality of life, and the U.S. 
is behind in this area. The U.S. needs to catch up to other OECD 
countries that have higher quality control and labeling standards, and 
that have maintained more functional local food economies through 
supporting small-scale farmers and preventing industrial agribusinesses 
from monopolizing the market.
    Thank you for considering my concerns, and I hope that in the 
future the farm bill will help to build a more equitable and healthy 
America.
                                 ______
                                 
                     Comment of Carolyn de Lorenzo
    Date Submitted: Friday, May 18, 2012, 7:16 p.m.
    City, State: Portland, OR
    Occupation: Student
    Comment: It is time to adopt agricultural policy that reflects the 
importance of putting the health of individuals, animals and our 
environment above the interests of big agriculture. I am one among many 
who is fed up with corrupt and abusive agricultural practices. Policy 
should reflect the will of the people, not big business.
                                 ______
                                 
                      Comment of Franco De Nicola
    Date Submitted: Friday, May 18, 2012, 10:31 p.m.
    City, State: Pittsford, NY
    Comment: Subsidies for commercial farming and the chemical industry 
need to be cut with those funds going to and being granted to organic 
farmers to bring about a rebirth in local family farming with 
sustainable practices that also don't add to the costs of health 
insurance in this country from the billions of pounds of toxins and GMO 
nonsense that the commercial farming industry uses annually. It's time 
to stop the for profit nonsense no matter who it hurts in this country. 
Are you listening Congressman Reed, or are have you totally sold out to 
the lobbyists and Tea party. I think, Mr. Reed, you are confused about 
who you are supposed to be representing!
                                 ______
                                 
                       Comment of Elizabeth De Sa
    Date Submitted: Saturday, May 19, 2012, 4:55 p.m.
    City, State: Nevada City, CA
    Occupation: Teacher
    Comment:

  <bullet> label food containing GMOs

  <bullet> stop subsidizing agro-businesses

  <bullet> subsidize organic and local farmers
                                 ______
                                 
                       Comment of Margaret De Wys
    Date Submitted: Friday, May 18, 2012, 11:49 a.m.
    City, State: Rhinecliff, NY
    Occupation: Teacher
    Comment: I'm all for family, local, and organic farmers. I want my 
government to support them. Do not keep funding big Ag. The food they 
bring to the American people is poisonous.
            Sincerely,

Margaret De Wys.
                                 ______
                                 
                        Comment of Linda Deacon
    Date Submitted: Friday, May 18, 2012, 10:02 a.m.
    City, State: Los Angeles, CA
    Occupation: Statistician
    Comment: We need all the support possible for sustainable, meaning 
organic, farming practices and for small scale family farms. We must 
move away from non-sustainable agribusiness practices which are 
destroying our precious resources.
                                 ______
                                 
                          Comment of Jeff Dean
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: Homer, AK
    Comment: End subsidies and support for polluting, factory based, 
GMO and chemical farming. There is no place in goodness for these. 
Shift all support to small local organic food production. Do this 
immediately with no remorse or bowing to political and money pressure 
from big business interests. Absolutely!
                                 ______
                                 
                         Comment of Joanne Dean
    Date Submitted: Friday, May 18, 2012, 9:31 a.m.
    City, State: Fremont, CA
    Occupation: Retired
    Comment: The next farm bill needs to quit subsidizing the big 
producers who are making us sick with their GMOs and factory farm 
animals. This is so wrong on so many levels, unhealthy produce and 
animals, environmental problems, contamination of our water, the list 
could go on and on.
    If any is to be done then support our small farms that are trying 
to produce the food that is good for us instead of trying to get rid of 
them with your over regulations.
                                 ______
                                 
                      Comment of Jeffrey Dearborn
    Date Submitted: Saturday, May 19, 2012, 8:28 p.m.
    City, State: The Dalles, OR
    Producer/Non-producer: Producer
    Type: Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: I believe your/our 2012 Farm Bill needs strict 
accountability. The waste I've seen in the past is appalling. Make sure 
the farm bill makes sense to an educated High School Senior. If it 
doesn't make financial sense to them, change it. These programs that 
read like a mission to the moon end up making work for government 
workers without any benefit to the small farmer. If you keep it simple, 
it will work. If you make it complex and it takes me 2 weeks to figure 
out if my farm qualifies then you have failed. I'd like to see Congress 
succeed. Please.
                                 ______
                                 
                        Comment of Elisa DeBoer
    Date Submitted: Sunday, May 20, 2012, 2:29 p.m.
    City, State: Ballwin, MO
    Occupation: Homemaker
    Comment: Any farm bill must serve the interests of consumers, 
family farms and sustainable agriculture over the interests of 
corporate agribusiness and their profits. In addition, we should not be 
subsidizing unhealthy foods like high fructose corn syrup, which have 
been shown to be devastating to our national health.
                                 ______
                                 
                      Comment of Maria DeCabooter
    Date Submitted: Tuesday, May 15, 2012, 1:00 p.m.
    City, State: Tucson, AZ
    Occupation: Advocacy Specialist at Girl Scouts of Southern Arizona
    Comment: A $36 million cut to SNAP is not the way to go. The 
Committee should focus on writing a farm bill that creates economic 
opportunity and improves access to healthy, affordable food for all 
Americans.
    CFSC members had important wins in the Senate's Agriculture Reform, 
Food and Jobs Act and the
    House Agriculture Committee should include them in their bill.

  <bullet> Community Food Projects Program--$10 million per year to 
        help communities build food self-reliance.

  <bullet> Farmers Market and Local Food Promotion Program--$20 million 
        per year to develop farmers market capacity and create food 
        hubs to connect farmers with schools, hospitals, grocery stores 
        and other markets.

  <bullet> Hunger-Free Community Incentive Grants--An average of $20 
        million per year for a new SNAP local fruit and vegetable 
        incentive grant program at farmers markets and other healthy 
        food retailers.

  <bullet> Outreach and Technical Assistance for Socially Disadvantaged 
        Farmers and Ranchers Program (Section 2501)--The Senate bill 
        includes only $5 million per year for this program, less than 
        \1/2\ the funding level in the 2008 Farm Bill.
                                 ______
                                 
                       Comment of Diana DeCastro
    Date Submitted: Saturday, May 19, 2012, 6:52 a.m.
    City, State: San Jose, CA
    Occupation: Homemaker
    Comment: I am sick of big corporations like Monsanto influencing 
agricultural policies.
    Please stop allowing Monsanto, Kraft, Archer Daniel Mills, and 
Nestle from expanding and getting a tighter control on our food supply.
    I want organic food that contains zero GMO and additives in my 
food.
    I want accountability when I buy beef. Stop allowing beef to be a 
mix from different countries. If beef/meat is tainted we need to be 
able to trace its place of origination.
    I am also appalled at what ``food'' is given to the Native American 
Indian reservations. If you would never dream of serving it for a 
luncheon for congress members then why are you dumping that chemical 
crap on them?
    We the people need real 100% food.
    I don't want scientific modifications.
    I want real produce that has seeds that people can utilize freely.
                                 ______
                                 
                        Comment of Valda DeDieu
    Date Submitted: Friday, May 18, 2012, 12:55 p.m.
    City, State: Miami Beach, FL
    Occupation: Author, Poet, Inventor
    Comment: A strong America is only as healthy as its people. Health 
is wealth. Health affects us in every way, materially, physically, 
spiritually, and begins with what we put in our bodies. Let's take a 
step forward with the Healthy Farm Bill and keep up with other 
developed nations, instead of becoming last in the world in health, 
education, and ergo, wealth.
                                 ______
                                 
                         Comment of Darla Deeds
    Date Submitted: Thursday, May 17, 2012, 10:04 p.m.
    City, State: Bird City, KS
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: Please support organic farming and its organizations. This 
is healthy and what the consumers are demanding. This is the future of 
farming, because the population is not going to buy any GMO or 
chemically treated produce or grains. This is taking off and it will be 
much easier to get behind this move.
                                 ______
                                 
                        Comment of Elanora Deems
    Date Submitted: Tuesday, May 01, 2012, 4:07 p.m.
    City, State: Winterville, NC
    Occupation: Dir. of the Ministries of the Bread of Life
    Comment: It is of the utmost urgency that the Food Stamp program 
for the elderly & needy not be cut. NC Is Experiencing A Very Difficult 
Time & This Cut Back Would Cause A Hardship On These Beyond Belief!

Elanora (Betty) Deems.
                                 ______
                                 
                          Comment of Kara Deen
    Date Submitted: Friday, May 18, 2012, 2:12 p.m.
    City, State: Citrus Heights, CA
    Occupation: Shop Manager
    Comment: Consumers like me want food that is healthy for our 
families, the environment, and the economy. That means I support 
organic and sustainable agriculture, Not corporate agribusiness.
    It's time to stop catering to what factory ``farms'' and companies 
like Monsanto want, and listen to the people who are suffering while 
agribusiness gets rich.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I urge you to implement a Healthy farm bill now!
                                 ______
                                 
                       Comment of Angela DeFelice
    Date Submitted: Sunday, May 20, 2012, 11:03 p.m.
    City, State: Hopewell Junction, NY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. I am 30 years old and 
am the first in my generation to return to agriculture, after my 
grandparents' dairy closed in the 1950's. I currently manage 8 acres of 
mixed vegetables, serving a 200 member CSA. We have 3 hoop houses, an 
energy efficient greenhouse, and are looking to expand the operation. 
The land that I farm on is not my own. It was recently purchased (by a 
non-farmer) for an astronomical price that no farmer, young or old, 
could afford. While I am grateful for the opportunity to make a living 
while farming, I (and many young farmers in my position) are not able 
to afford land and are unable to build equity in the land that we work. 
Land prices are rising every year, and every year owning my own farm is 
more out of reach for me.
    Conservation easements are needed in order to make land more 
affordable, and allow farmers a secure future for their business and 
their families. Individual Development Accounts and more accessible 
loans for new farmers will also be critical for me as I look to start 
my own farm. As a young farmer ATTRA and SARE have been an invaluable 
resource. They are the first two sites that I search with questions 
about fertility, greenhouse production, post harvest handling . . . 
really anything. I ask that the Committee endorse all of the provisions 
of the Beginning Farmer and Rancher Opportunity Act (H.R. 3236), 
including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill. Please, support me and other young farmers 
as we work towards a more sustainable agriculture.
            Sincerely,

Angela DeFelice.
                                 ______
                                 
                       Comment of Carly DeFilippo
    Date Submitted: Friday, May 18, 2012, 10:00 a.m.
    City, State: New York, NY
    Occupation: Writing/Editing
    Comment: End the subsidies that support junk food and big 
agriculture over local family farms. These subsidies are the funds that 
contribute to obesity and illness--and will lead to future, 
insurmountable deficits in healthcare.
                                 ______
                                 
                         Comment of Nadine Deif
    Date Submitted: Friday, May 18, 2012, 8:54 p.m.
    City, State: Isle of Palms, SC
    Occupation: Unemployed
    Comment: Should end all farm subsidies as they only benefit large 
corporate argi-producers. The farm bill works against small SC farmers 
and should end. Plus, why should tax payers subsidize large 
agricultural corporations, especially at the expense of small local 
farmers or smaller organic farmers?
                                 ______
                                 
     Submitted Statement by Joe Del Bosque, Producer, Firebaugh, CA
    Congressman Costa and Congressman Cardoza, thank you for inviting 
me to participate on this forum.
    Good morning, my name is Joe Del Bosque. I'm a farmer from 
Firebaugh, California. My farm is a medium-sized, but fairly 
representative of San Joaquin Valley agriculture. We grow cantaloupes, 
organic cantaloupes, almonds, asparagus, cherries, and processing 
tomatoes. My farm is irrigated with water from the Central Valley 
Project. Our products are sold across the country and around the world. 
We contribute to the economy of our state and country, create jobs, and 
help balance our trade deficit.
    The biggest issue facing our Valley is arguably water reliability, 
or rather lack of. While most farmers such as myself attempt to ensure 
water for our permanent crops, our annual crops such as melons need to 
be protected as well. We cannot cut back on our melon program because 
we stand to lose market share and our labor. Like the hundreds of other 
specialty crops that make up California agriculture, melons have 
specific environmental preferences. There is no place like the Westside 
for melons. Water reliability is crucial to the survival of the 
specialty crops that drive our agricultural economic engine.
    Labor is as important to the fresh fruit and vegetable industry as 
land and water. Without labor we cannot harvest most of these crops. We 
have been fortunate to have a supply of labor, but that source is 
dwindling, and immigration policies are impacting our availability. 
Because of the seasonality of our labor demands, we need to structure 
programs that would benefit our farms, our workers, and our country. 
Funds and programs to help improve farmworker health and safety.
    Food safety is an issue that has become of monumental importance 
for the fresh fruit and vegetable industry. Our industry has long 
practiced good food safety policies, but even though California has 
never experienced a foodborne illness outbreak, we have seen that what 
happens in another part of the country can devastate our industry. 
California melon growers and other produce growers have taken a 
leadership role in improving science-based food safety policies and 
good agricultural practices. We need government to work with us as a 
partner.
    The Center for Produce Safety is one of those programs where 
farmers are being proactive.
                                 ______
                                 
                     Comment of Michael Del Grosso
    Date Submitted: Sunday, May 20, 2012, 8:13 a.m.
    City, State: Pittsburgh, PA
    Occupation: Mechanic
    Comment: While I am not a farmer I whole heartedly wish that 
something be done to keep local, small, and family operated farms and 
orchards from collapsing into the past. My government should be 
watching as these owners are selling, or leasing parts of their land to 
oil and gas companies just to maintain some of their crops. This can 
possibly lead to contamination of the food and land. With the human 
disease side effects and sicknesses that have yet to rear their heads 
in the early stages of the farmer ``compromise'' for the use of the 
land. Please keep the bill as it was meant to be.
                                 ______
                                 
                       Comment of Isaac DeLamatre
    Date Submitted: Friday, May 18, 2012, 10:50 a.m.
    City, State: Yellow Springs, OH
    Occupation: Chef
    Comment: I would rather we had no farm bill and let fair be fair, 
but if you must, please support small growers as well as large to boost 
small local economies, create community food independence and encourage 
small scale entrepreneurship.
                                 ______
                                 
                       Comment of Maureen Delaney
    Date Submitted: Thursday, May 10, 2012, 9:09 p.m.
    City, State: Oak Park, IL
    Occupation: Stay-at-Home Mom
    Comment: I volunteer at our local food pantry 2x a month, and have 
witnessed firsthand how many people are hungry. Receiving SNAP funds at 
the current level of funding is insufficient for most families. They 
end up coming to the food pantry, too, because their SNAP dollars don't 
stretch too far. Please do not cut SNAP funding.
                                 ______
                                 
                        Comment of Valerie Delar
    Date Submitted: Friday, May 18, 2012, 8:20 p.m.
    City, State: Tucson, AZ
    Occupation: Speech-Language Therapist and EEG Neurotherapist
    Comment: The children I work with increasingly have allergies and 
sensitivities to foods and or chemical substances. We need to 
strengthen our support of truly organic producers and small farms who 
are focusing on sustainable practices for the health of future 
generations.
                                 ______
                                 
                      Comment of Steve Delgadillo
    Date Submitted: Wednesday, May 09, 2012, 4:30 p.m.
    City, State: Santa Ana, CA
    Occupation: Community Advocate
    Comment: Please continue to support the needs of older populations 
with this bill. By Protecting Older Americans you help maintain the 
safety net needed for their well being. Thank you.

Steve Delgadillo.
                                 ______
                                 
                       Comment of Dru Ann Delgado
    Date Submitted: Thursday, May 17, 2012, 12:09 p.m.
    City, State: Munhall, PA
    Occupation: Administrator
    Comment: We need to do all we can to protect American farmers--they 
are a vital part of our national system. The U.S. needs to be more 
self-sufficient and rely less on products from overseas.
                                 ______
                                 
                     Comment of Victor Delgado, Jr.
    Date Submitted: Thursday, May 17, 2012, 12:09 p.m.
    City, State: El Paso, TX
    Occupation: Retired
    Comment: For the economic and health reasons, it is extremely 
important that we get a handle in our farm policies which impact an 
array of vital issues for the well being of all of the our citizens.
                                 ______
                                 
                           Comment of E. Dell
    Date Submitted: Thursday, May 17, 2012, 10:25 a.m.
    City, State: Stevensville, MD
    Occupation: Self-Employed Caregiver
    Comment: Statistics indicate that our senior population will 
increase dramatically. While I do not wish to see another entitlement 
program, I see a need to consider the senior population when 
identifying food bank needs.
                                 ______
                                 
                       Comment of Kenneth DeLong
    Date Submitted: Saturday, May 19, 2012, 7:36 p.m.
    City, State: Pleasanton, CA
    Occupation: Software Engineer
    Comment: Consumers and constituents are increasing nervous about 
the large, centralized and industrialized food system. More and more 
are opting out with their wallets and their votes.
    The new farm bill must recognize this. Instead of subsidizing corn 
and soy, which has led to an epidemic of obesity, diabetes, and 
allergy, we need to shift the focus to supporting small, local, 
community-oriented artisanal producers. The bill must realize the 
unique challenges these producers face. It must also realize that they 
do not pose wide-scale health risks (a farm that sells to 30 people 
cannot poison millions, unlike our CAFO-based system).
    A food system augmented by a dense network of local, small-scale, 
organic, artisanal producers would be good for our health, our economy, 
our communities, our children, and our nation. The new farm bill should 
support the expansion of this system.
                                 ______
                                 
                      Comment of Kathleen Delorey
    Date Submitted: Wednesday, May 09, 2012, 11:32 p.m.
    City, State: Whitmore Lake, MI
    Occupation: Retired Ironworker
    Comment: What a shame it is to have worked so hard all your life 
only to realize in your retirement yrs. such basic things as food 
medicine and shelter has to be decided about each month, what can I pay 
this month, do I eat or pay bills? We Need A Strong Farm Bill that will 
protect our needy Americans, from our babies to our seniors. It's time 
to help feed our own country and keep it strong for our future and for 
our children. What a disgrace to our country that we can feed and 
clothe other foreign lands and not our own people, we need our food 
programs like SNAP, TEFAP & CSFP saved or a new program started, we are 
very capable of growing enough food for our country so I really don't 
see why we should be having this problem at all, unless some large 
farms were paid not to grow corn, soybeans, wheat, etc. there needs to 
be a fair farm policy bill brought to the table that can actually help 
our vulnerable seniors and other struggling Americans in this terrible 
economic time to have access to healthy, nutritious food and not wonder 
where their next meal is coming from.
    Thank You.
                                 ______
                                 
                         Comment of Ann deLorge
    Date Submitted: Friday, May 18, 2012, 3:48 p.m.
    City, State: Augusta, GA
    Occupation: Self-Employed
    Comment: I believe we need to encourage many neighborhood organic 
gardens to provide healthy, affordable food for neighborhoods of all 
types. Monsanto and Bayer and whoever they are paying off in Congress 
are killing necessary insects and disrupting Nature's balance with 
their greed. This will go up the food chain to eventually destroy the 
only planet we happen to live on. (Contrary to my opinion, I hear that 
congressmen are humans, too) and are also eating poison.
                                 ______
                                 
                       Comment of Carol DelRosso
    Date Submitted: Friday, May 18, 2012, 2:26 p.m.
    City, State: Mannington, WV
    Occupation: Florist and Home Gardener
    Comment: Dear Sirs:

    I am very concerned about the health of this nation and its people. 
We must change the whole structure of the way we produce food. The 
model is extremely flawed and is choking the life out of every living 
thing on this planet. We must get back to organic farming practices and 
encourage polyculture instead of monoculture. It can be done. The 
perfect model is Polyface Farm in Swoope, Va. Please investigate this 
farm and the ingenious way he makes the animals work for him. We must 
encourage farmers to let the animals back on the land to graze and 
replenish the soils. We must encourage each individual to do his part 
to keep this Earth nourished and healthy. Our lives literally depend on 
revamping farming into the organic model instead of the industrialized 
model.
    Thank you,

Carol DelRosso.
                                 ______
                                 
                       Comment of Julie DeMaggio
    Date Submitted: Wednesday, May 16, 2012, 1:19 a.m.
    City, State: Chico, CA
    Occupation: Butte College Instructor
    Comment:

    1. I want the food I consume sustainable grown--meaning No GMO 
        seeds, No pesticides, and soil conservation farming methods.

    2. I demand healthy (organically grown, minimally processed) food 
        available in my children's school.

    3. I want small, sustainable producers protected and allowed to 
        produce--i.e., raw milk dairy farmers, and local farmer's 
        market growers.

    Thank you.
                                 ______
                                 
                       Comment of Darlene Demetri
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: Goshen, CT
    Occupation: Writer
    Comment: It is my belief that Congress, the Executive Branch and 
Supreme Court are making themselves obsolete in terms of working for 
the general welfare of the People who pay the taxes. The horrific Farm 
Bill is no longer useful and no longer responsive to our needs. I'm 
sick of agribusiness getting everything and am disgusted at the Obama 
Administration's support of GMOs and Monsanto that is out to poison us 
and destroy our natural resources. Enough is enough. For once, 
radically overhaul the farm bill to truly serve the people and have the 
best interests of the planet in mind.
    Therefore, I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> The Food Stamp Program.

    What Congress does on this will either further seal its fate as 
being the most radical, ridiculous and Useless institution we have in 
the government or it could improve its image in the people's eyes. 
Considering that the Radical Republicans and fascist corporations seem 
to be in control of this issue and pretty much everything of late, I do 
not harbor much hope that there will be progressive change and 
solutions.
    But, that will only continue to reinforce in people's minds here in 
the U.S. and worldwide--that the current system that we have been 
brainwashed into believing is the only way (plutocracy, capitalism, 
government control based on money, Faux democracy, etc.)--is no longer 
working.
    Although I am pleased with what my Democratic congressman in the 
House is doing, there are such few good one like him in the Congress to 
make a real difference.
                                 ______
                                 
             Joint Comment of Carol Demi and Laura Lupovitz
    Date Submitted: Thursday, April 19, 2012, 10:18 a.m.
    Names: Carol Demi and Laura Lupovitz
    City, State: Salisbury, NC; Greensburg, PA.
    Occupations: Corporate Relations Manager United Way of Allegheny 
County; Research
    Comment: Feeding our neighbors is a public-private partnership. I 
am doing my part by supporting my local food bank, and I want our 
government to do its part.
    Cutting anti-hunger programs will increase hunger in America, as 
well as the associated health care, educational, and economic costs of 
food insecurity and poor nutrition. To put it simply, hungry people 
cannot be productive.
    Please remember the families who are struggling in our community, 
and protect and strengthen important anti-hunger programs like TEFAP, 
SNAP, and CSFP in the 2012 Farm Bill reauthorization.
                                 ______
                                 
                        Comment of Linda Deming
    Date Submitted: Saturday, May 19, 2012, 7:58 a.m.
    City, State: Jacksonville, FL
    Comment: Please Do not let Organic Food growers down. I struggle to 
purchase foods not contaminated with GMO and pesticides and more. Being 
chronically ill and in a wheelchair makes money very tight. All we can 
do, to support farmers trying to provide ``clean'' food for people who 
suffer from illness disease and allergies, needs to be done now. Small 
farmers need to be supported by all the people and you.
                                 ______
                                 
                         Comment of Charle DeMo
    Date Submitted: Thursday, May 17, 2012, 4:34 p.m.
    City, State: Prineville, OR
    Occupation: Sustainable Building Advisor
    Comment: Growing and producing Hemp to manufacture over 1,000 
products including food, building material, biodegradable plastics and 
sustainable fuel. End subsidies for ethanol corn since it is carbon 
positive.
                                 ______
                                 
                        Comment of Gary Demuria
    Date Submitted: Friday, May 18, 2012, 1:49 p.m.
    City, State: Oneco, CT
    Producer/Non-producer: Producer
    Type: Poultry/poultry products, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: Please end this monopoly of government and big 
agricultural businesses such as Monsanto and other. We need to have 
change in the way we are feeding ourselves and most important labeling 
of our foods because there are many among us who feel that genetically 
modified foods are not good for us and we should have a choice of 
deciding what goes into our bodies not wondering what choice we are 
making. Also we must support our local farmers better as they are the 
backbone to our food system. Please consider these things from a 
concerned citizen
            Thank you

Gary Demuria.
                                 ______
                                 
                      Comment of Harold Denenberg
    Date Submitted: Friday, May 18, 2012, 10:20 p.m.
    City, State: Langhorne, PA
    Occupation: Retired
    Comment: Stop subsidizing giant farm businesses. Start supporting 
local, preferably organic farmers. Increase availability to most 
Americans healthy fruits and vegetables.
                                 ______
                                 
                       Comment of William Dengel
    Date Submitted: Saturday, May 19, 2012, 5:48 p.m.
    City, State: Campbellsville, KY
    Occupation: Nursing
    Comment: Please support more organic farming and small farmers. I 
would also like to see more support for farmers markets and less big 
agriculture. As a future small farmer I feel that too many subsidies 
are given to big farms that poison our environment with pesticides and 
herbicides. There are more sustainable ways that don't kill the life in 
the soil. Thank you for considering my input.
                                 ______
                                 
                        Comment of Isabel Denham
    Date Submitted: Friday, May 18, 2012, 7:57 p.m.
    City, State: Falmouth, ME
    Occupation: Retired Teacher
    Comment: Subsidies to big agra-industries must stop. Subsidies 
should go to small farmers, organic farmers, and co-ops. The use of 
dangerous chemicals must be curtailed and the use of hormones in 
animals. We must go back to the wisdom of earlier sustainable 
agriculture.
                                 ______
                                 
                         Comment of Sarah Denis
    Date Submitted: Friday, May 18, 2012, 12:52 p.m.
    City, State: Wakefield, RI
    Occupation: Homemaker
    Comment: Small independent organic farmers need your support. 
Supporting mixed farming, and locally grown and raised produce and meat 
is sustainable for the environment and for the economy. Monoculture is 
not.
                                 ______
                                 
                         Comment of Sara Denman
    Date Submitted: Friday, May 18, 2012, 5:27 p.m.
    City, State: Maple Valley, WA
    Occupation: Retired
    Comment: In a country that believes in being fair, how do you 
consider it fair to subsidize big agribusiness and not organic farms? I 
encourage you to make the playing field even.
                                 ______
                                 
                       Comment of Marianne Dennis
    Date Submitted: Friday, May 18, 2012, 6:53 p.m.
    City, State: Houston, TX
    Occupation: Accountant/Director of Food Pantry
    Comment: Please don't stop the stop hunger programs like SNAP. I 
already have a lot of clients for the food pantry and the need will 
grow even with those that have assistance in these programs. Can you 
imagine what would happen if they didn't have that assistance. It would 
look like Russia during the bread lines. Are we ready for that.
                                 ______
                                 
                        Comment of Jane Dennison
    Date Submitted: Saturday, May 19, 2012, 6:56 a.m.
    City, State: Granville, OH
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: Please do not fall prey to big agriculture lobbyists! 
Protect the small farmer, organic farming, and conservation issues 
above all else! My health and that of the country depends on this.
                                 ______
                                 
                         Comment of Jerry Depew
    Date Submitted: Thursday, May 17, 2012, 12:09 a.m.
    City, State: Laurens, IA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: Don't kill conservation funding just as the weather is 
turning more extreme. Iowa floods have high costs, not just in lost 
soil.
    Don't subsidize crop insurance so that one farmer can grow 
endlessly. I'd say no more acres can be insured than were insured by 
the same farmer in the past. That will stop consolidation on the public 
dime!
                                 ______
                                 
                        Comment of Stacie Depner
    Date Submitted: Sunday, May 20, 2012, 2:41 p.m.
    City, State: Lakeland, MN
    Occupation: Business Management Consultant
    Comment: Corporate agriculture has proven to be a detriment to our 
land, livestock, and health. Please stand behind sustainable organic 
family farming to produce food that has vitamins and minerals and 
preserves the soil's nutrients as well without chemical contamination 
to our land, livestock, and loved ones.
                                 ______
                                 
                       Comment of Gloria Derksen
    Date Submitted: Friday, May 18, 2012, 2:41 p.m.
    City, State: Ferryville, WI
    Occupation: Newspaper Office Worker
    Comment: I would like to see the farm bill adjusted so that those 
receiving aid are doing something sustainable. I've read enough 
articles and books and listened to enough programs to see who's getting 
the money--corn & soy to feed cows & pigs on CAFOS (also getting money) 
to turn the ag economy into a Monsanto and big ag single supply system. 
These corporations and factories kill land, destroy family farms and 
ruin lives. It's not cheap food if our tax dollars are going to 
supplant the giants. If we want real change we will support the small 
farmer, suffering to keep afloat and be entrepreneurial and the 
burgeoning organic industries. This is what people want. Let's give 
them what they want. They don't want to be sued by Monsanto--why are 
they given so much consideration in the supreme courts? It's 
unfathomable how everything feels upside down. I'd prefer No money for 
any Farm if things keep going the way they are. Let the market prevail. 
Am I then worried about the small farmer? No, they aren't getting 
anything anyway.
                                 ______
                                 
                        Comment of Renee Deroko
    Date Submitted: Friday, May 18, 2012, 12:58 p.m.
    City, State: Grantville, GA
    Occupation: HR Technology and Integration
    Comment: Hello, I am a 42 year old FT working Mom of three small 
children. I am taking the time to educate myself on these proceedings 
and to provide feedback because this topic is paramount to what is 
produced in the U.S., and therefore what food is readily available for 
consumption by its citizens. Feeding my children natural, organic and 
affordable food to enable them to grow up healthy and strong is one of 
my highest priorities as a Mom and I need your help. That the current 
version of this bill subsidizes the production of food that is making 
our children and our planet sick is reprehensible and must be a call to 
action by those who have the power to change things and put the focus 
back on families battling hunger, regional farm and food economies, and 
more sustainable food production. It is the family farms that need 
support, not the big farms. We need to end subsidies (direct payments 
and countercyclical commodity programs) and ensure that CAFO's receive 
limited funding. I urge you to put aside pressure from the powerful 
lobbyist groups solely interested in profit, and instead focus on what 
is right for our country, our children, and our environment. There has 
never been a more critical time and the power is in your hands. Please 
do the right thing and support changes that will ensure a good, clean, 
and fair Food and Farm Bill.
            Sincerely,

Renee Deroko.
                                 ______
                                 
                       Comment of Kerstin DeRolf
    Date Submitted: Thursday, April 19, 2012, 4:51 p.m.
    City, State: Cynthiana, KY
    Occupation: Homemaker
    Comment: I would like to see regulations for the small farmer and 
rancher eased so that they do not drown in the same paperwork that is 
required for the big conglomerates. I like being able to supper the 
local farmer and rancher and their products (I don't want Wal-Mart or 
grocery stores to be my only choice for food). I like that I can talk 
with them and find out how they produce their food (organic produce, 
pastured chickens, grass-fed and -finished beef, and properly-raised 
pork)--just because Big Ag and the big conglomerates have determined 
how to grow everything in massive amounts, does not mean that should be 
the only way to produce it and the only way I can get it.
    Please keep that in mind when you write the new bills, and take 
consideration of the smaller farms and ranchers that may be driven out 
of business or never even start in business because of the bureaucracy 
determined to be necessary for the big corporations.
            Thanks,

Kerstin DeRolf.
                                 ______
                                 
                       Comment of James Deshotels
    Date Submitted: Friday, May 11, 2012, 5:05 p.m.
    City, State: Robertsville, MO
    Occupation: Nurse Practitioner
    Comment: Current farm bill contains unacceptable cuts to SNAP (food 
stamps) & seriously injures the common good (i.e., maximal life, 
liberty & ability to pursue happiness of ALL U.S. citizens & those 
living with us). USCCB has condemned it with good reason.
                                 ______
                                 
                        Comment of David Dessler
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: Richmond, VA
    Occupation: Teacher
    Comment: I am not a farmer but I am well of my dependence on 
American farmers. In the farm bill you are considering, please include 
measures to reduce unnecessary regulations on farmers, increase funds 
for farmer education, and protect America's farmland. In particular, 
more money needs to be spent funding SARE, Cooperative Extension 
services, and general education. In addition, The Local Farms, Food, 
and Jobs Act (H.R. 3286) should be fully funded. Please do not cut 
these programs! Thank you very much for considering my views.
                                 ______
                                 
                       Comment of Randy DeSutter
    Date Submitted: Monday, May 07, 2012, 9:57 a.m.
    City, State: Woodhull, IL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: I am unable to participate in the farm program on one of 
my farms because the previous owner did not participate and the farm 
does not have a base. The next farm bill needs a provision that allows 
farms like this a chance to establish a base and enroll in the program. 
Another option is to have a program based on actual planted acres. The 
people owning and farming the land today should be the one's making the 
decisions on the farm program, not someone who passed away almost 10 
years ago.
                                 ______
                                 
                        Comment of Peggy Detmers
    Date Submitted: Friday, May 18, 2012, 12:14 p.m.
    City, State: Rapid City, SD
    Occupation: Biologist
    Comment: My family who has been diagnosed with extreme grain 
intolerances sees that what Big Ag is doing to our food supply as 
downright criminal. A doctor at the Rapid City Medical Center says they 
are seeing an explosion of celiac and related grain induced autoimmune 
syndromes and ask me why. The doctors asked me, a biologist, who got 
rid of very serious health problems by eliminating grains from my diet, 
why this was happening. It's because grains now are modified with 
toxins!
    We need the full endorsement of all provisions of the Local Foods, 
Farms and Jobs Act (H.R. 3286).
    Fully funding conservation programs, such as the Conservation 
Stewardship Program, and making sure that enrollment in any new 
insurance subsidies are tied directly to compliance with conservation 
programs.
    The implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236).
    And MOST importantly . . . in order that we induce more clean 
healthy foods back into our food supply we Need to maintain and build 
the EQIP Organic Initiative.
                                 ______
                                 
                      Comment of Malisa Dettlinger
    Date Submitted: Friday, May 18, 2012, 3:01 p.m.
    City, State: Longmont, CO
    Occupation: Mother, Homemaker
    Comment: Dear Rep. Polis,

    My family and I plea you to vote yes to labeling GMO food. Please 
maintain the integrity of our organic food standards by not letting GMO 
foods, which cannot be controlled, taint organic food. Keep crops 
separate and at a great distance from one another. Also, we ask for 
fully funded conservation programs that make sure enrollment in new 
insurance subsidies are tied to compliance with conservation programs. 
Please maintain the EQIP Organic Initiative.
            Thank you,

Malisa Dettlinger.
                                 ______
                                 
                       Comment of Lauren Deutsch
    Date Submitted: Friday, May 18, 2012, 5:25 p.m.
    City, State: Los Angeles, CA
    Occupation: Nonprofit Organization Staff
    Comment: I support the farm bill and am urging others to do so. It 
is critical that human beings, not corporations, manage the sources of 
our food, including the way it is produced, the quality of the food 
material, the way the land is cared for and the accessibility to high 
quality nutrition. We can go nowhere else but Earth. Sustainability, 
not profit, is the point of life.
                                 ______
                                 
                        Comment of Carole Devine
    Date Submitted: Friday, May 18, 2012, 3:51 p.m.
    City, State: Portsmouth, VA
    Occupation: Consultant
    Comment: It has now been proven that GMO seeds cannot reproduce and 
are causing reproduction problems in third generation rats. High 
fructose corn syrup has proven health dangers, as well. There is Much 
more wrong with agriculture including Monsanto's lawsuits against 
organic farmers whose land receives windblown seeds onto their land. It 
is a travesty that our government is not doing something about this.
                                 ______
                                 
                      Comment of Andrea Dezendorf
    Date Submitted: Friday, April 27, 2012, 1:52 p.m.
    City, State: Lakewood, CO
    Occupation: Interior Landscaping
    Comment: As a supporter of local and national food banks, I urge 
you to pass a bill that helps the hungry. With the down turn in the 
economy over the last decade, more and more people rely on food 
programs. please make sure that funding for these programs stays in the 
farm bill. We can't let our kids and our seniors go hungry. Thank you.
                                 ______
                                 
                       Comment of Carole Di Tosti
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Kew Gardens, NY
    Occupation: Teacher
    Comment: In the last 4 years, I lost 120 pounds. Why? I didn't eat 
the processed foods in the food supply produced by agra business. I 
didn't shot at industrialized food stores like Stop and Shop, Walmarts, 
Pathmark, Safeway. I will not eat the foods marketed there because they 
made me Fat And Unhealthy. I'm lucky my fatty liver and heart and organ 
fat didn't give me worse problems. As it is my body flab is apparent, 
though I look and feel 1,000% better. I eat organic, free range, raw 
milk cheese, organic or locally sourced greens and produce and fruits, 
etc. I blog about this extensively and I am a Technorati journalist. 
And I am writing a book about weight loss and obesity. Corn oil? Ha, 
ha, ha, GM Wheat and flour produced from such wheat? Ha, ha, ha. I eat 
no flour products produced in the U.S. I am allergic and it makes me 
sick and makes me have arthritis and it made me incredibly Fat.
    So, you know I am for:

  <bullet> the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I don't care! I Would Rather Starve Than Eat The Food That 
Industrial Farms And Industrial Food Companies Produce And Create. I 
Have Learned, It Is Not What You Don't Put In Your Mouth That Kills You 
It Is What You Do. In a nation of obese, sickly, overweight and unhappy 
people, I am thin, look 20-25 years younger than my old, overweight 
counterparts in their 60s. And I am active. I looked just like they did 
10 years ago when I weight 240 pounds. I hope you get the message.
                                 ______
                                 
                        Comment of Barbara Diaz
    Date Submitted: Wednesday, May 09, 2012, 7:05 p.m.
    City, State: La Puente, CA
    Occupation: Unemployed
    Comment: Please provide healthy programs including organic and 
communal gardening for seniors and families to encourage production and 
consummation of fruits and vegetables, and legumes. The beef, poultry, 
fish and various other meat industries need to improve their standards 
of animal husbandry and practice humane, healthy, and sanitary 
practices. The farms, whether organic, small & independent, or factory 
and industrial need to meet higher standards and make the focus of 
production secondary. This will help animals, farmers, the middlemen, 
the consumers and our wonderful land and water systems, and do so much 
more positive. Please read Temple Grandin's work on farm animals. We 
need to rotate our crops and allow the land to heal, and part of this 
process is to let animals roam about and fertilize the Earth in a 
natural way.
                                 ______
                                 
                         Comment of Daily Diaz
    Date Submitted: Friday, May 18, 2012, 12:57 p.m.
    City, State: West Palm Beach, FL
    Occupation: Construction Contractor
    Comment: I only buy organic food for my family. My mother had been 
very ill in 2008. As soon as we changed her diet to organic including 
all dairy, she improved and was able to drink milk for the first time 
in 10 years where it did not upset her stomach.
                                 ______
                                 
                       Comment of Margarita Diaz
    Date Submitted: Wednesday, May 09, 2012, 2:46 p.m.
    City, State: Miami, FL
    Occupation: Unemployed
    Comment: To: House Agriculture.

    Those Hunger People than they don't have enough money to cover for 
food they need Your help, Approved their agriculture Jobs will Help 
them in the future with Food. They need to make a line to pick up their 
food. Every week.

Margarita, Miami, Florida.
                                 ______
                                 
       Submitted Letter by Kenneth Dibbell, South New Berlin, NY
March 9, 2012

House Committee on Agriculture,
United States Congress,
Washington, D.C.

    Dear Members of House Agriculture Committee:



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Are You Listening?

    Gentleman and Ladies:

    It is past time for realistic legislation concerning farm gate milk 
price. It is time to stop bowing to the Washington lobbyist (IDFA-NMPF) 
neither one of which represent the people, in this case dairy 
producers, and the rural economy that they support.
    Be aware that the current and past price discovery system has put 
200,000 producers out of business since 1980 and the loss of parity. 
Only 50,000 producers remain in production at present and they are 
starving for funds to pay high feed costs, high energy costs, high 
taxes and high costs for anything made with steel. Seed prices are also 
through the roof!
    It is time to pay producers cost of production as calculated by 
Economic Research Service. They are paid and staffed to do the work and 
their work is ignored!
            Sincerely,



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
Kenneth Dibbell.
                              attachment 1
March 31, 2011

United States Congress,
Washington, D.C.

    Dear Members of the United States Congress:

    What happened?!

    The question is: what happened to the home of the brave land of the 
free with liberty and justice for all? What happened to the Government 
for the People?
    The Unites States Congress has been directed not by the people but 
by the Lobbyist for special interest in the quest to feather their own 
nest with no concern for the lives they destroy along the way.
    Corporate America with the blessing of the U.S. Government has 
moved millions of jobs out of this nation presumably to maintain or 
even improve their margins. The Free Trade Parade! All across this 
industrial nation, poor managers let the unions get too much power in 
the quest for a higher standard of living; never setting them down and 
explaining the Facts of Life to them. Then those managers (many of whom 
packed up and left the scene with their umbrella full of cash in the 
form of millions of dollars--the reward for failure).
    Now let's look at the dairy industry in particular; when I came to 
this county 35 years ago there were 733 farms shipping milk to the 
commercial market. Now, there are less than 200. Why, because the 
Congress and the last four Administrations were not governing for the 
people. Government cannot run a business with any degree of success as 
illustrated by the FANNY MAE, FREDDY MACK and the U.S. Postal Service 
with its $8 Billion shortfall in 2010.
    The current and past raw milk pricing as administered has driven 
400,000 dairy producers out of business since 1981. The local economy 
supported by those producers is a shambles and, in effect, no longer 
exists. Businesses closed, employees laid off.
    There are fewer than 53,000 dairy producers left in the nation and 
most of them are at risk of failure and are leveraged to the point 
where many cannot borrow for spring planting in 2011. The cost of 
everything is rising everyday--gasoline, diesel fuel, fertilizer, seed 
and anything made of steel.
    I suggest that if this Congress has a conscience of any consequence 
that they get busy and fix this problem. Now, not in 2012. You have 
ignored the dairy price crisis since it happened in 2009.
    We do not need another Band Aid, we need to cover our cost as 
published by the ERS, a division of the USDA, calculated every month 
for all 23 dairy producing states.
    The MILC payment program has been a hoax from day one. It did not 
include a course in government math to teach you how to pay $5 of 
expense with 15 cents. National Milk Producers (processors) 
Federation's Foundation for the Future (FFTF) is far from being a 
solution to farm gate pricing. It is another system subject to 
manipulation like the current system of pricing milk based on the 
products traded on the CME.
    This system has destroyed the lives and livelihoods of 400,000 
dairy producers since 1981, leaving only less than 53,000 in 
production.
    Is this the United States of America? Certainly not the same one 
that I was born into in 1934, where everyone worked! There were no 
special education classes. Everyone conformed or else!
    Ladies and Gentlemen of the Congress, dairy producers need cost of 
production, now, not in 2012. The Casey Specter Bill has been there 
since 2007 as the answer to this problem, with a supply management 
feature financed by producers, not tax payers. It is past time for the 
Congress to gather up some courage to address the problem.
    You do not have to open the entire farm bill to fix what needs 
fixing in the dairy sector. Common Sense tells me that. Common sense 
does not appear to be abundant in the U.S. Congress or at the USDA as 
well.
    You all need to get familiar with the ``Agriculture Marketing Act'' 
still on the law books and it is the Law! Dairy producers need cost of 
production to survive and stimulate the local economy that relies on 
dairy dollars. They need it now!
    If consumers can pay $4 per gallon for gasoline, they can certainly 
pay $4 per gallons for milk, the world's most nutritious beverage.
    It doesn't cost any more to process $25 milk than it does for $15 
milk.
    The current price discovery system borders on insanity as evidenced 
by the number of producers who have suffered economic strangulation. 
The tail has been wagging the dog for far too long.
            In Desperation,



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
Kenneth Dibbell.
                              attachment 2
March 4, 2010

Members of Congress,

    Ongoing Dairy Crisis:

    We are entering our 15th month of absolutely outrageous farm gate 
milk prices and no one seems to care. Spring is coming and far too many 
of our farms are out of cash and out of credit and spring cropping is 
just around the corner.
    Senate bill 1645 referred to as the Casey-Specter bill is sitting 
stagnant in the Senate. It provides for pricing based on cost of 
production with a supply Management system which should stop some of 
the unnecessary growth. You cannot grow your way out of this mess at 
these currently low prices and without supply management the smaller 
farms will continue to fail due to economic strangulation.
    We have had 30 years of below cost payment resulting in the loss of 
\4/5\ of the operating dairy farms of 1980. We are down to less than 
50,000 left in the nation. Is this the America I was born into quite a 
number of years ago, I don't think so!
    The milk payment program is an absolute farce and raising the 
payment limit to 6 million pounds cut the payment to small farms in \1/
2\, an absolute disgrace to common sense.
    Federal Order I (11 Northeast States) revenue was down 33% from 
previous year and only down 616 million pounds. New York was down $.6 
billion and if spent a modest five times in the local economy that was 
$30 billion not available to stimulate the rural economy. In all of 
Order I that number is $70 billion. Nationwide that number is hundreds 
of billions. Where is the sense? It is well past time for Washington to 
wake up and fix this mess as it is your fault for not being in touch 
with reality!
    There is not a valid argument for not pricing milk on the cost of 
production as published by Economic Research a division of USDA. The 
money needs to come from the marketplace with a reasonable explanation 
to consumers. Sustain our dairy farm community to provide a fresh high 
quality product. Milk is good!
    National Milk Producers Federation should have a name change to: 
National Milk Processors Federation. Co-ops should go back and review 
their mission statement and truly represent their farmer members 
interest.
    It Is Past Time To Act!
            In total disgust 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
Kenneth Dibbell.
                              attachment 3

     Estimated Pay Price to Dairy Farmers Under the Federal Milk Marketing Improvement Act of 2009 (S. 1645)
----------------------------------------------------------------------------------------------------------------
                               Class II Basic       Class I                        Price Paid to      Class I
        Federal Order             Formula        Differential        Class I         Dairymen       Utilization
----------------------------------------------------------------------------------------------------------------
                I--Boston            $22.00             $3.25           $25.25           $23.51           46.5%
           5--Appalachian            $22.00             $3.10           $25.10           $24.05           66.3%
               6--Florida            $22.00             $4.00           $26.00           $25.36           84.0%
     7--Southeast/Atlanta            $22.00             $3.10           $25.10           $23.83           59.3%
      30--Midwest/Chicago            $22.00             $1.80           $23.80           $22.28           16.0%
  32--Central/Kansas City            $22.00             $2.00           $24.00           $22.63           31.4%
    33--Mideast/Cleveland            $22.00             $2.00           $24.00           $22.77           38.4%
  124--Pacific NW/Seattle            $22.00             $1.90           $23.90           $22.56           29.5%
    126--Southwest/Dallas            $22.00             $3.00           $25.00           $23.09           36.4%
             131--Arizona            $22.00             $2.35           $24.35           $22.88           37.5%
               California            $22.00             $1.90           $23.90           $22.34           18.0%
----------------------------------------------------------------------------------------------------------------
*This revised formula was compiled by Arden Tewksbury, Manager, Progressive Agriculture Organization to more
  effectively equalize the prices paid to dairy farmers in the United States. Figures used are 2009 figures


                                                                      attachment 4  

                                                  2009 Mailbox Milk Prices For Selected Reporting Areas in Federal Milk Orders & California \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Reporting Area \2\     January      February      March        April         May          June         July        August     September     October      November     December    Average \3\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
 New England States        $14.95       $12.46       $12.25       $12.66       $12.65       $12.27       $12.22       $12.57       $13.45                                             8$12.830
                 \4\
           New York        $13.94       $11.72       $11.52       $11.93       $11.96       $11.61       $11.47       $11.81       $12.64                                             8$12.070
Eastern Pennsylvania       $14.45       $11.98       $11.76       $12.16       $12.14       $11.73       $11.80       $12.12       $12.99                                               $12.35
                 \5\
 Appalachian States        $16.55       $13.20       $12.25       $12.70       $12.78       $12.36       $12.74       $13.04       $13.94                                               $13.28
                 \6\
Southeast States \7\       $17.05       $13.76       $12.47       $13.08       $13.15       $12.85       $13.38       $13.88       $14.77                                               $13.82
Southern Missouri \8\      $14.98       $11.69       $10.78       $11.09       $10.77       $10.77       $11.08       $11.51       $12.55                                               $11.69
            Florida        $18.39       $14.97       $13.61       $14.34       $14.70       $14.07       $14.81       $15.37       $16.20                                               $15.16
Western Pennsylvania       $14.37       $11.89       $11.61       $12.07       $11.86       $11.53       $11.53       $11.97       $12.97                                               $12.20
                 \9\
               Ohio        $14.83       $12.28       $11.97       $12.43       $12.32       $11.87       $11.90       $12.45       $13.28                                               $12.59
            Indiana        $14.86       $12.00       $11.34       $11.76       $12.00       $11.37       $11.51       $11.90       $12.81                                               $12.17
           Michigan        $13.76       $11.51       $11.29       $11.74       $11.55       $11.16       $11.16       $11.69       $12.61                                               $11.83
          Wisconsin        $12.94       $11.24       $11.87       $12.17       $11.40       $11.24       $11.15       $12.25       $13.30                                               $11.95
          Minnesota        $12.77       $11.82       $12.27       $12.26       $11.49       $11.26       $11.27       $12.57       $13.48                                               $12.13
               Iowa        $13.60       $11.73       $11.84       $12.23       $11.84       $11.48       $11.33       $12.22       $13.23                                               $12.17
           Illinois        $13.38       $11.62       $11.84       $12.06       $11.80       $11.44       $10.91       $12.44       $13.29                                               $12.09
Corn Belt States \10\      $13.61       $11.33       $11.43       $11.62       $11.33       $10.96       $10.82       $11.69       $12.82                                               $11.73
 Western Texas \11\        $12.98       $10.73       $10.73       $11.07       $10.59       $10.20       $10.43       $11.30       $12.22                                               $11.14
         New Mexico        $12.25       $10.03        $9.92       $10.26        $9.77        $9.37        $9.66       $10.51       $11.39                                               $10.35
Northwest States \12\      $12.75       $10.66       $10.95       $11.29       $10.87       $10.55       $10.57       $11.17       $12.17                                               $11.22
  All Federal Order        $13.77       $11.61       $11.60       $11.96       $11.61       $11.27       $11.30       $12.04       $12.98                                               $12.02
          Areas \13\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
    California \14\        $10.57        $9.80        $9.92        $9.88        $9.70        $9.63        $9.60       $10.51       $11.20                                               $10.09
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Notes:
\1\ Net pay price received by dairy farmers for milk. Includes all payments received for milk sold and all costs associated with marketing the milk. Price is a weighted average for the
  reporting area and is reported at the average butterfat test.
\2\ Information is shown for those areas for which prices are reported for at least 75% of the milk marketed under Federal Milk Orders. The price shown is the weighted average of the prices
  reported for all Orders that received milk from the area.
\3\ Figures are annual averages--the weighted average of the monthly figures; except California, which is the simple average.
\4\ Includes Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, and Vermont.
\5\ All the counties to the east of those listed in n. 9.
\6\ Includes Kentucky, North Carolina, South Carolina, Tennessee, and Virginia.
\7\ Includes Alabama, Arkansas, Georgia, Louisiana, and Mississippi.
\8\ All counties of Vernon, Cedar, Polk, Dallas, Laclede, Texas, Dent, Crawford, Washington, St. Francois, and Perry and all those to the south of these.
\9\ The counties of Warren, Elk, Clearfield, Indiana, Westmoreland, and Fayette, and all those to the west of these.
\10\ Includes Kansas, Nebraska and the Missouri counties to the north of those listed in n. 8.
\11\ All counties to the west of Fanin, Hunt, Van Zandt, Henderson, Anderson, Houston, Cherokee, Nacogdoches, and Shelby.
\12\ Includes Oregon and Washington.
\13\ Weighed average of the information for all selected reporting areas in Federal Milk Orders. Previous year figures have not been revised for new reporting areas.
\14\ Calculated by the California Department of Food and Agriculture, and published in the ``California Dairy Information Bulletin''.
Prepared by: Mideast Market Administrator's Office. Last updated on: December 21, 2009.


                        New York, monthly dairy costs of production per hundredweight (cwt) of milk sold, 2009 (dollars per cwt)
--------------------------------------------------------------------------------------------------------------------------------------------------------
      Item \1\           Jan        Feb        Mar        Apr        May        Jun        Jul        Aug        Sep        Oct        Nov        Dec
--------------------------------------------------------------------------------------------------------------------------------------------------------
Operating costs:
  Total feed costs        11.91      11.25      11.12      11.03      10.85      11.38      10.70      10.61      10.25      10.43      10.41      10.21
    Purchased feed         6.32       5.96       5.84       5.92       5.86       6.54       6.05       6.11       5.74       5.89       5.86       5.73
    Homegrown              5.50       5.21       5.19       5.02       4.91       4.76       4.58       4.42       4.43       4.46       4.48       4.40
     harvested feed
    Grazed feed            0.09       0.09       0.09       0.09       0.08       0.08       0.08       0.07       0.08       0.08       0.08       0.07
  Veterinary and           1.00       0.98       0.98       0.96       0.91       0.96       0.96       0.98       1.00       1.01       1.00       0.99
   medicine
  Bedding and litter       0.52       0.50       0.50       0.49       0.47       0.48       0.49       0.50       0.51       0.51       0.51       0.50
  Marketing                0.28       0.27       0.27       0.27       0.25       0.27       0.27       0.27       0.28       0.28       0.28       0.28
  Custom services          0.56       0.55       0.55       0.54       0.51       0.53       0.54       0.55       0.56       0.57       0.56       0.56
  Fuel, lube, and          0.70       0.67       0.64       0.66       0.65       0.77       0.76       0.82       0.84       0.88       0.92       0.91
   electricity
  Repairs                  0.90       0.88       0.88       0.88       0.83       0.86       0.87       0.90       0.90       0.92       0.91       0.90
  Other operating          0.00       0.00       0.00       0.00       0.00       0.00       0.00       0.00       0.00       0.00       0.00       0.00
   costs
  Interest on              0.14       0.14       0.14       0.14       0.13       0.14       0.14       0.14       0.14       0.15       0.14       0.14
   operating capital
                     -----------------------------------------------------------------------------------------------------------------------------------
    Total operating       16.01      15.25      15.10      14.98      14.60      15.38      14.73      14.77      14.48      14.75      14.74      14.50
     costs
                     -----------------------------------------------------------------------------------------------------------------------------------
Allocated overhead:
  Hired labor              2.25       2.21       2.21       2.16       2.05       2.12       2.11       2.17       2.19       2.28       2.26       2.23
  Opportunity cost         3.61       3.53       3.55       3.46       3.28       3.39       3.38       3.47       3.51       3.66       3.61       3.58
   of unpaid labor
  Capital recovery         4.33       4.34       4.38       4.31       4.09       4.23       4.40       4.52       4.59       4.66       4.61       4.58
   of machinery and
   equipment
  Opportunity cost         0.02       0.02       0.02       0.02       0.02       0.02       0.02       0.02       0.02       0.02       0.02       0.02
   of land (rental
   rate)
  Taxes and                0.33       0.33       0.33       0.32       0.31       0.32       0.32       0.33       0.33       0.34       0.34       0.33
   Insurance
  General farm             0.79       0.77       0.78       0.77       0.73       0.75       0.75       0.77       0.77       0.79       0.79       0.78
   overhead
                     -----------------------------------------------------------------------------------------------------------------------------------
    Total allocated       11.34      11.20      11.26      11.04      10.47      10.84      10.99      11.28      11.41      11.75      11.63      11.53
     overhead
                     ===================================================================================================================================
      Total All           27.36      26.45      26.37      26.01      25.07      26.22      25.72      26.05      25.88      26.50    826.360    826.030
       costs listed
--------------------------------------------------------------------------------------------------------------------------------------------------------
8How can farms survive with these numbers.0
\1\ Estimates may be adjusted based on revisions in monthly agricultural price indices and milk production estimates.
Source: Based on USDA's 2005 Agricultural Resource Management Survey of milk producers and updated using current USDA milk production per cow and
  production input indexes. See http://www.ers.usda.gov/Data/CostsAndReturns/monthlymilkcosts.htm for methodology.


                                                  2009 Mailbox Milk Prices For Selected Reporting Areas in Federal Milk Orders & California \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Reporting Area \2\     January      February      March        April         May          June         July        August     September     October      November     December    Average \3\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
 New England States        $14.95       $12.46       $12.25       $12.66       $12.65       $12.27       $12.22       $12.57       $13.45       $14.84       $15.90       $17.06        $13.59
                 \4\
           New York        $13.94       $11.72       $11.52       $11.93       $11.96       $11.61       $11.47       $11.81       $12.64       $13.82       $14.84     8$16.010      8$12.750
Eastern Pennsylvania       $14.45       $11.98       $11.76       $12.16       $12.14       $11.73       $11.80       $12.12       $12.99       $14.43       $15.52       $16.68        $13.07
                 \5\
 Appalachian States        $16.55       $13.20       $12.25       $12.70       $12.78       $12.36       $12.74       $13.04       $13.94       $15.30       $16.33       $17.38        $13.97
                 \6\
Southeast States \7\       $17.05       $13.76       $12.47       $13.08       $13.15       $12.85       $13.38       $13.88       $14.77       $16.41       $16.93       $17.75        $14.52
Southern Missouri \8\      $14.98       $11.69       $10.78       $11.09       $10.77       $10.77       $11.08       $11.51       $12.55       $14.23       $15.01       $15.85        $12.39
            Florida        $18.39       $14.97       $13.61       $14.34       $14.70       $14.07       $14.81       $15.37       $16.20       $17.76       $17.86       $18.64        $15.79
Western Pennsylvania       $14.37       $11.89       $11.61       $12.07       $11.86       $11.53       $11.53       $11.97       $12.97       $14.60       $15.69       $16.63        $13.00
                 \9\
               Ohio        $14.83       $12.28       $11.97       $12.43       $12.32       $11.87       $11.90       $12.45       $13.28       $14.88       $15.85       $16.84        $13.39
            Indiana        $14.86       $12.00       $11.34       $11.76       $12.00       $11.37       $11.51       $11.90       $12.81       $14.27       $15.34       $16.35        $12.94
           Michigan        $13.76       $11.51       $11.29       $11.74       $11.55       $11.16       $11.16       $11.69       $12.61       $14.02       $15.05       $16.10        $12.63
          Wisconsin        $12.94       $11.24       $11.87       $12.17       $11.40       $11.24       $11.15       $12.25       $13.30       $14.54       $15.69       $16.61        $12.88
          Minnesota        $12.77       $11.82       $12.27       $12.26       $11.49       $11.26       $11.27       $12.57       $13.48       $14.83       $15.77       $16.58        $12.90
               Iowa        $13.60       $11.73       $11.84       $12.23       $11.84       $11.48       $11.33       $12.22       $13.23       $14.60       $15.66       $16.70        $13.03
           Illinois        $13.38       $11.62       $11.84       $12.06       $11.80       $11.44       $10.91       $12.44       $13.29       $14.71       $15.69       $16.72        $12.95
Corn Belt States \10\      $13.61       $11.33       $11.43       $11.62       $11.33       $10.96       $10.82       $11.69       $12.82       $14.12       $14.99       $16.01        $12.52
 Western Texas \11\        $12.98       $10.73       $10.73       $11.07       $10.59       $10.20       $10.43       $11.30       $12.22       $13.37       $14.65       $15.49        $11.96
         New Mexico        $12.25       $10.03        $9.92       $10.26        $9.77        $9.37        $9.66       $10.51       $11.39       $12.52       $13.86       $14.53        $11.13
Northwest States \12\      $12.75       $10.66       $10.95       $11.29       $10.87       $10.55       $10.57       $11.17       $12.17       $13.52       $14.84       $16.00        $12.10
  All Federal Order        $13.77       $11.61       $11.60       $11.96       $11.61       $11.27       $11.30       $12.04       $12.98       $14.29       $15.37       $16.37        $12.82
          Areas \13\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
    California \14\        $10.57        $9.80        $9.92        $9.88        $9.70        $9.63        $9.60       $10.51       $11.20       $12.30       $13.78       $15.33        $11.02
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Notes:
\1\ Net pay price received by dairy farmers for milk. Includes all payments received for milk sold and all costs associated with marketing the milk. Price is a weighted average for the
  reporting area and is reported at the average butterfat test. Mailbox price does not include Milk Income Loss Contract (MILC) payments. Mailbox price does include, for the most part, the
  assessment under the Cooperatives Working Together (CWT) program.
\2\ Information is shown for those areas for which prices are reported for at least 75% of the milk marketed under Federal Milk Orders. The price shown is the weighted average of the prices
  reported for all Orders that received milk from the area.
\3\ Figures are annual averages--the weighted average of the monthly figures; except California, which is the simple average.
\4\ Includes Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, and Vermont.
\5\ All the counties to the east of those listed in n. 9.
\6\ Includes Kentucky, North Carolina, South Carolina, Tennessee, and Virginia.
\7\ Includes Alabama, Arkansas, Georgia, Louisiana, and Mississippi.
\8\ All counties of Vernon, Cedar, Polk, Dallas, Laclede, Texas, Dent, Crawford, Washington, St. Francois, and Perry and all those to the south of these.
\9\ The counties of Warren, Elk, Clearfield, Indiana, Westmoreland, and Fayette, and all those to the west of these.
\10\ Includes Kansas, Nebraska and the Missouri counties to the north of those listed in n. 8.
\11\ All counties to the west of Fanin, Hunt, Van Zandt, Henderson, Houston, Cherokee, Nacogdoches, and Shelby.
\12\ Includes Oregon and Washington.
\13\ Weighed average of the information for all selected reporting areas in Federal Milk Orders.
\14\ Calculated by the California Department of Food and Agriculture, and published in ``California Dairy Information Bulletin''.

                              attachment 5
January 30, 2010
    Washington, D.C.--The National Family Farm Coalition (NFFC) today 
expressed its concern over the American Farm Bureau Federation's (AFBF) 
rejection of supply management for the dairy industry at the recent 
AFBF annual meeting in Seattle, Washington. In an article printed 
January 20, 2010 in the Wisconsin State Farmer, Bill Bruins a Waupun, 
Wisconsin, dairy farmer and President of Wisconsin Farm Bureau, said 
that the national discussion mirrored the policy discussion Wisconsin 
Farm Bureau had last month.
    Mr. Bruins made a lot of assumptions for himself on behalf of the 
AFBF that may or may not be in sync with the majority of dairy farmers 
in Wisconsin or the United States. He does talk of consensus of farmers 
at the recent AFBF annual meeting in Seattle, Washington. The American 
Farm Bureau Federation has never been a leader in dairy policy because 
their membership does not represent a majority of dairy farmers. 
However a majority of AFBF dairy members are suffering financially 
today from the current dairy policy that Mr. Bruins endorses. The 
leadership appears to be boasting dairy policy based on past AFBF total 
agriculture policy and how it fits the mold.
    Dairy farmer Gerald Carlin from Meshoppen, Pennsylvania said 
``According to Bill Bruins the consensus of Farm Bureau is in 
opposition to supply management. I wonder how many convention goers 
were swayed by bad information and fear-mongering over supply 
management stifling farmer's ability to compete in a free market. I am 
sure many who support supply management were intimidated by so called 
experts whose goal was to make support of supply management look 
foolish and uninformed.''
    The fear that southern farmers reportedly had that supply 
management may prohibit them from ever producing enough milk to meet 
the needs of the region seems quite ironic since milk production in the 
South has been in steep decline under the so-called free market system. 
Supply management with a cost of production would have allowed them to 
hold their own and they would not be in the shape that they are in now.
    Mr. Bruin talks about several groups including the Holstein 
Association pushing for programs that would help the industry avoid a 
severe downturn in dairy prices like we experienced in 2009, which 
created huge losses for dairy farmers. We need to applaud him for his 
analogy. But he falls short on solutions, when he points out the down 
turn in prices due to losing 50 percent of our export market. He fails 
to identify that we cannot rely on the export markets to sustain a 
dairy industry in the United States and what we have is broken and it 
is imperative that we have a new pricing mechanism.
    Loren Lopes, dairy farmer, Turlock, California and member of the 
NFFC Dairy Subcommittee said, ``What we need is stability above the 
cost of production for a long period of time to get back on track. At 
the Wisconsin convention they had a discussion on the delegate floor 
that concluded controlling supply was not going to help them. I have to 
agree somewhat with them because I saw it in California. Without 
changing the price discovery, without addressing the make allowance, 
without addressing imports of Milk Protein Concentrates (MPC) and 
balancing imports and exports, and then finally national supply 
management, the prices will continue below the cost of production. The 
Federal Milk Marketing Improvement Act of 2009 (S. 1645) addresses all 
of this. We are entitled to a domestic price for the milk that goes to 
market every day and not be affected by exports or imports as we are 
now. The New Price Discovery must be based on the national average cost 
of production and Return on Investment, according to USDA/ERS.''
    Bruins made no indication that Farm Bureau is concerned about 
corruption in the current system costing farmers billions of dollars in 
lost income. Nor does Farm Bureau seem to be concerned about the fact 
that the dairy industry beyond the farm level has made inappropriate 
profits at the farmer's expense. Even so, declining demand, real or 
contrived, is always blamed on farmers getting paid too much for milk.
    Mr. Bruin revealed the agenda of the AFBF leadership. Farm Bureau 
believes that deregulating the industry and opening new markets are 
what the industry needs. ``We are in competition with the world.'' 
Bruins said. This is the same policy as International Dairy Foods 
Association (IDFA) and National Milk Producers Federation (NMPF). 
Deregulation would be the means to the end for the independent family 
dairy farm.
    AFBF has long been a strong backer of free trade policies which 
have continually put downward pressure on farm gate prices as we 
compete with the rest of the world in the race to the bottom. AFBF 
supports the use of Milk Protein Concentrate (MPC). Imported MPC would 
continue to ``run our supply cup over,'' and, if ever a subsidized 
domestic MPC industry is established, as AFBF has advocated, it would 
mean MPC users would simply have the cheapest source of MPC, whether 
imported or domestic, and all dairy farmers would be forced to take 
bottom dollars for this untested, undefined, unapproved and possibly 
unsafe manufactured powdered ingredient!
    Mr. Bruins said there was nearly an hour of debate about dairy at 
the AFBF convention. He said the delegation eventually passed a 
resolution to make national dairy policy a priority issue.
    A member of Farm Bureau that wishes to remain anonymous, asked, 
``How many of the delegates who determine final dairy policy are 
`actually dairy farmers?' Whose `voices' are really being spoken for by 
AFBF?'' The member went on to say, ``Bill Bruin, Wisconsin Farm 
Bureau's nominee to the new National Dairy Industry Advisory Committee 
complained that Farm Bureau was `snubbed' by the United States 
Department of Agriculture (USDA) and that a lack of appointees from the 
American Farm Bureau Federation and National Milk Producers Federation 
(NMPF) and the United States Dairy Export Council `alienated' the 
mainstream dairy industry. Perhaps part of the reason Mr. Bruin and 
others were `snubbed' or `alienated' is, after years of claiming they 
are the `voices' who speak for farmers, our rapidly disappearing dairy 
farmers continue to experience the worst financial dairy collapse 
ever!''
    National Family Farm Coalition has long advocated national food 
sovereignty without restraints of or from the World Trade Organization 
(WTO). Cost of Production for farmers, strategic food reserves, and 
sensible supply management, many of these objectives would be carried 
out in dairy by the passage of the Federal Milk Marketing Improvement 
Act of 2009 (S. 1645).
                              attachment 6
Feb. 4. 2010

Hon. Thomas ``Tom'' J. Vilsack,
Secretary,
U.S. Department of Agriculture,
Washington, D.C.

February (TBD), 2010

    Dear Secretary Vilsack,

    The present low milk prices are destroying dairy farmers. We urge 
you to use your authority to establish an emergency floor price to 
immediately raise farmer milk prices to cost of production.

    Dairy Development Manifesto:

    Dairy farming is too important to just leave to market forces. Its 
multifunctional character connects dairy to many non-economic concerns 
of society. The labor intensity of milk production provides for a 
strong employment impact. The intensive care needed for dairy animals 
favors family and smallholder farmers. Dairy farming has a high 
potential for poverty reduction in rural areas. Many synergies exist 
through the integration of cattle husbandry and crop farming for the 
benefit of agro-ecology. Pasture-based dairy production has a high 
potential for carbon sequestering. Milk is a valuable protein-rich food 
which is able to improve poor people's diets enormously and allow them 
to live in dignity.
    We note that dairy development has been damaged in most developing 
countries by liberalization policies and national governments' neglect. 
Also, in developing countries the deregulation of milk markets has 
destructive effects on their dairy farmers and for the international 
trade of milk products.
    Smallholder dairy farmers and their access to markets should be 
high in the agendas of national development policies. Governments 
should recognize, support, and protect the vital role of milk 
production, processing, and distribution.
    International flows of distorted trade in milk contradict the logic 
of optimal allocation. The biggest exporters are the high cost 
producers of developed countries, while many developing countries, who 
are most in need of dairy development and where their farmers are among 
low cost producers, suffer under the cut throat competition of import 
surges. Trade with dairy products bas to become fair and conducive to 
the U.N. Millennium Development Goals. We need to reform trade and 
agricultural policies to achieve food sovereignty, eradicate hunger, 
combat climate change, and protect the environment.
    Organizations of dairy farmers and other stakeholders. from around 
the world are appealing to the leaders of the developed countries to 
use the opportunity of their debates on farming policy reform to 
include the following aspects into revision of their policies 
concerning dairy:

  <bullet> Stop any form of exporting dairy product into foreign 
        markets that undercuts local farmer prices.

  <bullet> Avoid harm to dairy farmers in developing countries. This 
        responsibility has to go even beyond the present trade rules. 
        It should be done by a sustainability impact assessment of 
        dairy trade flows and trade agreements.

  <bullet> Do not get in the way of developing countries that choose to 
        defend their infant dairy economies against outside 
        competition.

  <bullet> Support national dairy development programs.

    Endorsers of this manifesto include:

  American Raw Milk Producers Pricing Association (USA)

  Family Farm Defenders (USA)

  National Family Farm Coalition (USA)
                              attachment 7
May 6, 2010

Brandon Willis,
Deputy Adm. Farm Programs,
U.S. Department of Agriculture,
Washington, D.C.

    Brandon:

    Thank you for your letter of April 30th regarding Farm Gate Milk 
Prices.
    Agreed lots of cows have been added except for New York and 
Minnesota.
    Everyone who still has credit is trying to fill last year's void 
without consideration of price and cost of production. I think we could 
raise the support price to $1.65 and pay only the amount of 2009 lbs of 
production. At least 20% or more of our third, fourth, and fifth 
generation farms will die without proper payment.
    USDA is aiding in the self destruction of the dairy industry as we 
knew it in the 20th Century.
    The big farm virus model dairy complex is destroying rural America. 
With over production and environmental issues, the blood of this new 
crop of failed farms (economically strangled) by current policy will 
stain the hands of USDA and the Congress for a long, long time.
    Section 608C states that milk price shall be determined by food 
cost and other economic conditions. Well taxes, insurance and energy 
are for sure other economic factors!
    Six years ago I could buy farm diesel for 69.9 in August of 2004. 
Now it is $3.00 or more. These farms have improved efficiency to no 
avail and can no longer survive in this environment. Feed, machinery, 
and dairy supply businesses supported by the small farm community are 
also victims of this self destruction going on in this industry.
    ERS calculates the cost in New York at $26.15/CWT minus $3.00 of 
unpaid labor leaving a cast cost of $23.00/CWT and a pay price of 
$15.00 does not hack it.
            Painfully Yours,

Ken Dibbell.
                              attachment 8
April 13, 2010

To: All Members of Congress

Immediate Emergency Action Must Be Taken To Prevent A Complete Meltdown 
            On The Majority Of Us Dairy Farms

    (1.) Either Congress or USDA Must Immediately Raise The Support 
        Price on All Manufactured Dairy Products to a Level of at Least 
        $18.00 Per cwt; or

    (2.) Either Congress or USDA Must Place a Floor Price of at Least 
        $18.00 to $20.00 per cwt Under All Classes of Milk Used for 
        Manufacturing Purposes. The Existing Class I Differentials Must 
        Be Added to the Floor Price To Determine the Value of Class I 
        Milk.
                              attachment 9
April 27, 2010

    Dear Leaders:

    President Obama, Blanche Lincoln (Chair), Patrick Leahy (Member 
Senate Ag. Committee), Secretary Vilsack USDA, Collin Peterson (Chair), 
Tim Holden (Vice Chair) House Ag. Committee.
    This Nations Dairy Farm Community is about to finish the sixteenth 
month of Farm Gate milk price at \2/3\ or less of cost as published by 
Economic Research Service (ERS), while a.m.S continues to administer a 
failed, flawed and manipulated Farm Gate milk price, based on less than 
2% of dairy traded on the CME.
    Now we are faced with the TPP which will put another nail in the 
coffin of American dairy farmers. Our consumers do not want any of 
their dairy products coming from the Pacific Rim. They want their 
farmers to be paid a living wage.
    We have been tip toeing around this crisis and ignoring the impact 
on the farms and the rural economy supported by dairy dollars for too 
long! Let's remember that Dairy America forward contracted our milk 
powder at 80 per pound when the domestic price was $2.50 per pound and 
world price was $2.40. Outrageous!
    It is time for you ``Leaders'' to step up to the plate and face 
reality. Raise the support price, immediately and give those farms near 
collapse a chance to survive until we can fix this issue once and for 
all.
    I have reviewed the testimony of the DIAC. I see nothing there but 
more maneuvering on behalf of corporate and cooperative milk. Insurance 
is out of the question in practical terms, just more jobs to 
administer. If we would just price the milk on cost of production, as 
outlined in SEN Bill 1645 with a production control feature, problem 
solved!
    Corporate Milk has to back off the record profit train. Anti-Trust 
and monopoly issues are killing American dairy farms and abusing 
consumers.
    Looks like a clean cut case of discrimination cost vs. pay price.
    It is not necessary to open the farm bill to fix this crisis.
    Some competent and responsible decisions made by you people need to 
take place on the farms that fed this nation during the 20th century 
and doomed to fail due to Congress failing to recognize how very 
serious this crisis is and to do something.
    Move Senate Bill 1645 Now!
    Do It Now!
            Sincerely,



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
Ken Dibbell.
                             attachment 10
August 27, 2010

    Unbelieveable!

    It amazes me that Washington has stonewalled the Farm Gate pricing 
of milk for Twenty consecutive months now, on the other hand should we 
expect a competent and rational decision on this issue. Has common 
sense left Washington, D.C. completely? It would certainly seem so.
    Hiding behind the fact that we would have to open up the entire 
farm bill to address this issue is outrageous, again demonstrating the 
lack of rational decision making from Government. When something is 
broken, you fix it; not ignore it assuming it will fix itself. Yes, the 
price has risen but it still has not reached the cost of producing it.
    These farms operated all of 2009 at about a $10 loss per cut. We 
are still well below cost at $18/CWT. This problem could have been 
addressed back at the beginning with a floor price set by the 
Secretary.
    Over production would not have been an issue if payment had been 
limited to 2009 production.
    I challenge government through USDA to do the right thing and 
generate a pay-price equal to better than the cost of production 
published by ERS.
    This would make a lot of farms taxpaying enterprises and would 
certainly stimulate the local economy that operates on dairy dollars.
    For a lot of years I thought government of the people, by the 
people and for the people was responsible for protecting the people. 
Family Farmers are people.
    The present situation reeks of treason by the sovereign against its 
people.
    The days of cheap food are over my friends and if not it will be 
soon.
    If we don't start collecting Social Security payments on all those 
imports from China that system is doomed to fail and we will have 
obtained Third World Status.
    God Bless America.

Ken Dibbell.
                             attachment 11
Friday, April 09, 2010

    Dairy groups push legislation

    Written By Michelle Monroe

    Congress to take up crucial discussions

    ST. ALBANS--As dairy farmers remain stuck in a second year of low 
prices, grassroots farm organizations have increased pressure on 
Congress for action to save struggling farms.
    Locally, Dairy Farmers Working Together (DFWT) has posted draft 
legislation (at www.dfwt.org) that will be sponsored by Rep. Jim Costa, 
D-Ca., in the U.S. House.
    The proposed legislation is a formalized version of the now 
familiar dairy price stabilization plan, previously referred to as the 
Holstein plan.
    However, representatives from another grassroots group, the 
Progressive Agriculture Organization (PRO AG), will be traveling to 
Washington next week to speak with legislators about a different bill, 
the Federal Milk Marketing Order Modernization Act of 2009, commonly 
referred to as the Specter-Casey bill, which has been introduced in the 
Senate.
    The Specter-Casey bill would eliminate Class III and IV milk 
prices, leaving just two classes: milk for drinking, Class I, and milk 
for manufacturing, Class II. The price for Class II would be the 
average cost of production for milk across the United States, as 
determined by the USDA. The Class I price would be determined by adding 
the Class I differential to the Class II price. Prices would be 
adjusted quarterly.
    The existing Milk Orders would remain as they are, but the Class II 
price would become uniform across the country.
    The Class I differential vary by region. Generally the areas with 
lower costs of production such as California and the Upper Midwest have 
lower Class I differentials and lower Class I utilization. Conversely, 
areas that have higher costs of production such as the Northeast and 
the Southeast also tend to have higher differentials and higher Class I 
utilization.
    Thus, farmers in areas with lower costs of production would receive 
a lower blend price for their milk than farmers in higher cost areas. 
In the Northeast, for example, roughly 45 percent of the milk produced 
has traditionally been Class I, so 55 percent of the price received by 
farmers would be the based on the lower price and 45 percent on the 
higher price.
    In the Upper Midwest, less than 20 percent of the milk has 
traditionally been used for drinking. Their price would be based almost 
entirely on the lower Class II price.
    ``Farmers want to be paid what it costs them to produce their milk, 
no more and no less,'' said Floyd Hall, a retired dairy farmer from 
Lefargeville, N.Y., who supports the bill.
    ``We're losing so many farmers,'' Arden Tewksbury, a leader of PRO 
AG from Pennsylvania told the Messenger. ``Not only do we lose farmers, 
we lose infrastructure and rural America''
    The bill contains a supply management component. When there is an 
excess supply of milk, the U.S. Secretary of Agriculture is empowered 
to reduce payments to farmers on up to five percent of their production 
to \1/2\ of the Class II price. If the oversupply continues, the 
Secretary could reduce payments to farmers on any production over their 
previous year. There is an appeals process for farmers whose previous 
production was unusually low the previous year because of disease or 
natural disaster.
    The money saved on the reduced price would be given to the USDA to 
purchase milk products through the Commodity Credit Corporation. Those 
products are then distributed to needy families and children through 
school lunch programs and food banks.
    No price reductions could be made if imports of dairy products from 
other countries into the United States exceeded exports.
    The bill also eliminates the make-allowance, a payment farmers make 
to cheese, yogurt and other manufactures to support those businesses. 
Supporters of the make allowance argue that because of the seasonal 
nature of the milk supply--it is greater at some times of the year than 
others--farmers should help to maintain adequate manufacturing capacity 
to deal with the excess during those times when the market is flush 
with milk.
    Staff for Sen. Bernie Sanders, I-Vt., told the Messenger he 
strongly supports the bill. Sen. Patrick Leahy, D-Vt., bas not taken a 
position on the bill, and a version has not yet been introduced in the 
House.
    Asked why DFWT has not supported the Specter-Casey bill, DFWT 
president Amanda St. Pierre replied via e-mail, ``We are very 
supportive of the individual elements in the Specter Bill and early on 
in the process we vetted that plan to our folks and others around D.C. 
and the industry. Unfortunately, we kept hearing the same thing--that 
it would not get out of the starting gate because it was trying to 
tackle too much at the same time.''
    St. Pierre said she felt portions of the bill could be accomplished 
in stages.
    Hall challenged the idea that the dairy industry will be able to 
get changes to the pricing system, supply management and other 
improvements to the industry one piece at a time. Instead, he said, any 
bill the industry puts forth needs to address all of the needed 
changes, because once a bill is passed legislators will take the 
attitude that they've already addressed the problem.
    In the past year, PRO AG has met with nearly 2,000 farmers in New 
York, Pennsylvania and Iowa, according to Tewksbury. The farmers 
they've spoken with almost always support the bill.
    ``We're not going to get it passed if we don't throw our weight 
behind it,'' Tewksbury said.
    ``The co-ops don't like it at all,'' Tewksbury said.
    ``You're fighting IDFA (International Dairy Foods Association) and 
National Milk and all these people who don't milk cows,'' said Hall, 
who joined the chorus against the National Milk proposals for replacing 
price supports and the Milk Income Loss Contract with insurance.
    Dairy Farmers of America (DFA) spokesperson Kristi Bell told the 
Messenger via e-mail that DFA does not believe the bill ``will fully 
address our problems.''
    ``Any future policy must incorporate a growth management plan that 
is reactive to market conditions,'' Bell wrote, suggesting the bill 
might lead to an increase in imports. ``Further, the Specter-Casey Bill 
guarantees that the Federal milk price will never fall below the cost 
of production, but fails to acknowledge that production costs vary 
greatly across the United States,'' Bell wrote.
    The cost of production as determined by the USDA varies, but not 
very much. USDA's January 2010 cost of production figures for 23 dairy 
states show 13 states having a cost of production between $19 and $25. 
Another four have costs between $25 and $27. Only one has a cost of 
production below $19.
    The full text of the bill appears on the PRO AG website (http://
proagorg.webs.com).
                                 ______
                                 
                      Comment of Babette Dickerson
    Date Submitted: Friday, May 18, 2012, 11:26 a.m.
    City, State: Los Angeles, CA
    Occupation: Graduate Student
    Comment: Our food is important to our existence, literally. Our 
citizens are dying of cancer because of the processed, laboratory-
produced, artificial, non-food they eat. Stop selling this carcinogenic 
non-food. Make more local, organic, sustainable, bio-dynamic, fresh 
food. That's the only way to feed our nation. Large factory farms kill 
our citizens.
                                 ______
                                 
                       Comment of Sara Dickerson
    Date Submitted: Friday, May 18, 2012, 9:14 a.m.
    City, State: Sarasota, FL
    Occupation: Website Administrator
    Comment: We must change our subsidies to agriculture to encourage 
and support sustainable organic farms instead of large corporate 
agriculture. The health of our population and the future of our country 
depend on it. Our national focus needs to move to healthy food for our 
children. There is nothing more important to any nation than the health 
and education of its children.
                                 ______
                                 
                       Comment of Nancy Dickinson
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: University City, MO
    Occupation: Retired
    Comment: It is time for reform. The large farm corporations do not 
need handouts from the government. Small farmers and organic farmers 
are the ones who need support. We need better supervision of the 
pesticides used and the impact on the water supply. The best 
agricultural practices need to be used, not the cheapest and probably 
most harmful to the land and water. We did not get recalls of our 
produce in the past as we are having been getting in recent years. The 
same crop year after year wears out the land so crops need to be 
rotated. The people who harvest crops need to be paid decent wages.
                                 ______
                                 
                       Comment of Maria Dickmann
    Date Submitted: Friday, May 18, 2012, 2:47 p.m.
    City, State: Davenport, IA
    Occupation: Nanny
    Comment: We need to stop the overproduction of corn, it is 
unhealthy for humans to eat so much processed corn It's causing health 
care costs to skyrocket so any savings for the consumer to buy cheap 
processed corn foods is really a cost in the long run.
                                 ______
                                 
                      Comment of Susan Didrichsen
    Date Submitted: Friday, May 18, 2012, 10:14 a.m.
    City, State: New York, NY
    Occupation: Professional Musician
    Comment: Please understand that more and more Americans are aware 
of the unbelievably corrupt power of Monsanto and its power over our 
choices in not only the country but the world. We want organic produce, 
we want fairness, we want real farmers with access to their own seeds. 
Do the right thing!
                                 ______
                                 
                       Comment of Cathy M. Diehl
    Date Submitted: Friday, May 11, 2012, 11:29 a.m.
    City, State: Winter Park, FL
    Occupation: Retired/Disabled
    Comment: I help out at a food pantry every week and find more very 
young mother with children and older seniors in such need that it 
breaks my heart. I'm also one of them. I am raising two of my 
grandchildren that the state placed into my home. I'm on disability and 
only $100 in food stamps. How can any family eat what they should when 
more than \3/4\ is to pay living expenses? How are the children to grow 
up and study when there isn't enough food on the table? How is a senior 
to live when they don't eat so they can pay the electric bill? PLEASE 
don't vote to cut any more than what has already TAKEN from the people 
that need it the most.

Cathy M. Diehl, Disabled Grandmother Raising Grandchildren this is who 
    I am. And there are so many more doing the same thing I am. Please 
    Let Us Eat!
                                 ______
                                 
                       Comment of Mark DiGiacomo
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Lebanon, PA
    Occupation: Golf Professional
    Comment: I think the road we are on in terms of agricultural 
practices in this country is the wrong road. I think our reliance on 
chemicals and genetically modified seeds to produce food is an 
unsustainable practice. I also feel we are damaging our health as a 
nation by consuming food grown on poor soils that is lacking in 
nutrients but full of chemical residues from pesticides. I think 
organic farming should be supported because as more people learn about 
the food they are eating the more demand there will be for organic 
options. The current system is unsustainable for so many reasons. We 
shouldn't leave our food supply in the hands of a few major 
agribusinesses, but promote smaller, more sustainable, farming 
practices that protect the quality of the food we eat as well as the 
environment in which we live.
                                 ______
                                 
                        Comment of Jerry Dillard
    Date Submitted: Friday, May 18, 2012, 2:38 p.m.
    City, State: Bend, OR
    Occupation: Consultant; Environmental Technologies Assoc. LLC
    Comment: We are eating ourselves out of existence . . .
    We are Polluting our ground water, air, Oceans & filling our 
atmosphere with reactive nitrogen, that last 126 years & is 310 worse 
on the environment than Carbon dioxide . . . Nitrous oxide is creating 
our
    Ocean Dead Zones, now over 475 different locations around the world 
. . . all this result from the over use of NPK fertilizers . . .
    Since 1985 Agribusiness has promoted and doubled the use of 
pesticides, herbicides and yes NPK fertilizers . . .
    All In the name of ``we need more food,'' false, we can make more 
money is the truth of the motivation, otherwise Nutrition & reduction 
of environmental impacts would be the focus . . . thus once again the 
opposite direction of our founding integrity . . .
    We need to grow food with Nutrition that the process does not 
damage the mineral resource in our soil by destroying the 
microorganisms, increasing the Agriculture demand for water, which in 
the USA is now 80% of our available water . . . This is caused by the 
negative impact of NPK fertilizers on our soil, due to this over use, 
salinity in soil leads to compaction and the demand for more water . . 
. NPK is like a drug . . . every year you have to use more . . . to get 
the same high yield for the farmer . . . as a result our Nutrition & 
Environment is suffering . . . plus the food grown for livestock is 
without adequate nutrition.
    By replacing the mineral loss in our soil, Nature has provided a 
way we can easily overcome every negative of Agriculture . . .
    But because minerals cannot be patented there is no financial 
support for something so simple and so right . . . visit www.us-rem.com 
if you would like to increase your awareness & see the result of others 
using Excelerite Minerals, 100% from Nature . . .
    This continued non action on the part of the government is 
destroying the health of soil that leads to the health of individuals . 
. .
    Big Pharma does not care, more disease just means a bigger demand 
drugs, Big Oil does not care since they use more Oil, since our food 
source is made to be dependent on Oil, coal & Natural gas . . . all of 
which can be converted into NPK fertilizers . . . Look what is being 
allowed to continue, in the name of ``we need jobs'' . . .
    Declining Nutrition in our Food, as a result of this lack of 
Fiduciary Responsibility on the part of our Government . . . Not only 
has this lowered individual energy, due to the lack of minerals in our 
body's, most know this is a contrived manipulation for the continued 
dumbing down of America & control by the Big 5 . . . We now have more 
people obese & overweight than the entire population of the country I 
was born into in 1945?
    Freedom means more than religion & speech . . .
    It also means Free Seed for farmers, the right to safe air to 
breathe, nutritional water & food. The continued removal of minerals 
from our drinking Water & Food will be the decline of the most 
Powerful, Intelligent & Democratic society in the world . . .
    We are now doing most everything the opposite of what this country 
was founded on . . .
    We has become Me, the Big 5 . . . citizens are expendable.
    I urge you . . .
     Support the ``We once again'' and let go of this Special Interest 
Corp. ``Me society,'' we have become that is now running our Government 
. . . Result is, Countries thru out the world find our society lacking 
in our previous values of ``Compassion and Empathy,'' for ourselves & 
others around the world . . . today Everything is judged, the highest 
good for all concerned is no longer a value.
    The least you can do . . . show Compassion for the people in the 
USA asking for Nutrition in our Drinking water & food once again 
without ongoing pollution to our environment . . .
    Please Support Nutrition once again and the reduction of the 
pollution to our environments caused by Agribusiness & NPK fertilizers.
            Thank you if you have read this far . . .

Jerry.
                                 ______
                                 
                     Comment of Christopher Dilley
    Date Submitted: Friday, May 18, 2012, 1:18 p.m.
    City, State: Kalamazoo, MI
    Occupation: Retail Grocery Manager
    Comment: I am writing in support of much stronger sustainability 
and small scale, local farming supports than are currently proposed in 
the draft farm bill.
    I manage a growing and thriving natural foods store in Kalamazoo, 
Michigan, and we are very much dependent on strong legislative support 
for local farmers (especially young and beginning farmers), local food 
production, environmental conservation, and organics. Due to that, I am 
writing to advocate for the following in the upcoming farm bill:

    (1) The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (4) Maintaining the EQIP Organic Initiative.

    Thank you very much for your consideration!
            Yours,

Chris Dilley, General Manager,
People's Food Co-op of Kalamazoo.
                                 ______
                                 
                      Comment of Elizabeth Dillon
    Date Submitted: Friday, May 18, 2012, 8:07 p.m.
    City, State: Seattle, WA
    Occupation: Gardener/Beginning Farmer
    Comment: As a beginning farmer myself, I'm very concerned about the 
proposed cut in funding Beginning Farmer programs will receive should 
this bill pass. Having not grown up in a farming family, I've had to 
invest time and money learning how to farm and I've taken advantage of 
State and Federal programs aimed at encouraging new young farmers into 
agriculture. Without these programs, I would not be in the position I 
am today to enter the agricultural industry and help our aging farmer 
population transition, keeping agricultural lands productive. And not 
only that, it's very difficult to find lenders willing to provide loans 
to beginning farmers so that they may purchase land to actually start 
farming. Therefore, I strongly encourage the members of the House 
Committee on Agriculture to rethink their positions and leave the 
Beginning Farmer programs budget alone. Surely we could take more cuts 
from subsidies/direct payments/crop insurance--especially since big 
agricultural farms turning huge profits should be able to stand on 
their own feet without getting taxpayer money in their back pockets. 
Small farmers are the ones who need the most help and are mostly 
ignored by helpful policies and increased budgetary spending. It's time 
the small (i.e., less than $250,000 earnings/year), family-owned and 
young farmer-started farms reap some of the rewards. Thank you for your 
time.
                                 ______
                                 
                        Comment of Sherry Dillon
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Mardela Springs, MD
    Occupation: Animal Rescue
    Comment: As a vegan I'm very concerned about where my food comes 
from. We need protection for organic and family farmers. With factory 
farming things have gone out of control on the quality and safety of 
our food supply.
                                 ______
                                 
                     Comment of Alexandra Dilworth
    Date Submitted: Saturday, May 19, 2012, 11:25 a.m.
    City, State: Ashland, OR
    Producer/Non-producer: Producer
    Type: Forestry, Poultry/poultry products
    Size: 50-150 acres
    Comment: Insure The Survival Of Small Family Farms, Ranches And 
Woodlands. Safeguard Survival Through By Not Allowing Monsanto And 
Other Giant Corporations To Control Crop Seed Ownership & Production! 
Please support:

  <bullet> the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully fund conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

  <bullet> Insist on implementation of all provisions of the Beginning 
        Farmer and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Judith DiNardo
    Date Submitted: Saturday, May 12, 2012, 5:19 p.m.
    City, State: Stow, OH
    Occupation: Tax Return Preparer
    Comment: May is Older Americans Month, so it's a good time to raise 
your awareness and fight senior hunger. I want SNAP, TEFAP, and CSFP 
protected. Please protect and strengthen programs that put food on the 
table for Ohio's hungry seniors and other Americans!
    Feeding America's Hunger in America 2010 study unearthed some 
startling facts about senior hunger that you should know:

  <bullet> In 2010, 7.9 percent of households with seniors (2.3 million 
        households) were at risk; 30 percent of client households with 
        seniors indicated that they have had to choose between food and 
        medical care and 35 percent have had to choose between food and 
        paying for heat/utilities;

  <bullet> In 2009, nearly 9 million people over the age of 50 and 
        nearly 4 million people over the age of 60 lived in at-risk 
        households.

    We must ensure hunger-relief programs remain protected so that 
seniors who worked their entire lives continue to have access to these 
vital programs. Protect SNAP, TEFAP, and CSFP.
                                 ______
                                 
                        Comment of Susan DiPuma
    Date Submitted: Friday, May 18, 2012, 12:18 p.m.
    City, State: Duluth, GA
    Comment: Cutting food stamp programs to increase the bottom lines 
of giant commodity farmers and insurance companies is not reform! The 
American people need and deserve true reform that leads to sustainable 
agriculture and our land, water, and small family farms. Please stand 
up for the people, and not giant corporations.
                                 ______
                                 
                       Comment of Boris Dirnbach
    Date Submitted: Saturday, May 19, 2012, 9:09 a.m.
    City, State: Philadelphia, PA
    Occupation: Teacher
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I don't support a program steals food from the mouths of the hungry 
to create a ``$33 billion new entitlement program that guarantees the 
income of profitable farm businesses. That's on top of $90 billion in 
subsidies for crop and revenue insurance policies.''
                                 ______
                                 
                  Joint Comment of Ann and Walt Disney
    Date Submitted: Saturday, May 19, 2012, 6:42 p.m.
    City, State: Virginia Beach, VA
    Occupation: Government Worker
    Comment: Please do everything you can to see that farmers can 
produce crops they can sell locally without being terrorized or put out 
of business. Also see that they get government support just as the big 
corporate farmers are getting. This is America . . . where everyone has 
a chance. As you know, Monsanto and people like Bill Gates with a huge 
amount of wealth are causing many small farmers to sell their farms. 
These people who are like you and I are being destroyed by the 
influence and agitation of huge corporations with destructive power. Do 
not stop supporting the small farmer. Do everything you can to support 
them. And do what you can to stop the illegal, abusive human tactics, 
chemical abuses to our air, water, farms, animals, produce, and fish. 
Pay day is someday . . . if you as legislators do not fight for what is 
right, you who are representing the citizens of this great country 
might see it all go down the drain as big business wants and is paying 
big bucks for. However, each person, in the end is responsible for 
their own doings and each person will either suffer grave consequences 
for the evil they perpetrated or rejoice in doing what he could to be 
honest, fair, and loving in each of his speech and actions. Each person 
will either go to be with God, who created each one of us, or go to be 
with the adversary Satan . . . And we shall see him coming in the 
clouds . . . Revelations
     Make sure you stop all genetically altered seeds and foods because 
eating altered produce and foods are dangerous and disease causing for 
the senators and representatives too. Please allow things to be 
produced naturally without pasteurization and homogenization and stop 
the feeding of animals and farm raised fish to be fed corn, 
antibiotics, hormones. They are to eat the food they were designed to 
eat. Therefore, enact:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                      Comment of Roseann DiVicino
    Date Submitted: Saturday, May 19, 2012, 8:29 a.m.
    City, State: Port Richey, FL
    Occupation: Caterer
    Comment: I fully support organic and sustainable agriculture. The 
labeling of all GMO products needs to also be addressed. Stop siding 
with the Agri-Giants such as Monsanto etc. Their policies are 
destroying the water, land, organics and even the bees. Stop whoring 
for cash and protect the people.
                                 ______
                                 
                        Comment of Meghan Dixon
    Date Submitted: Friday, May 18, 2012, 5:14 p.m.
    City, State: Green Ridge, MO
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: ``Food is medicine.'' ``You are what you eat.'' Americans 
are beginning to realize the truth in these sayings. Genetically 
modified foods and produce sprayed with chemicals are not part of a 
``healthy'' diet nor is it what's good for our planet or our children. 
It seems to be making our population and our soil sick. If you can't 
find a ladybug nor an earthworm in the ground where the food is being 
raised you may reconsider whether or not this food is healthy. If it 
takes loads of antibiotics to keep the chicken or hog alive until it 
makes it to the processing plant you may reconsider whether or not that 
hog or chicken was really healthy.
    If you really care about what is best for Americans, please stand 
up for America and not the Big Money of AgriBusiness. Please make room 
in the farm bill for continuing to improve the opportunities for 
Americans to farm organically for the health of our planet and our 
people. Our lives depend on it.
            Regards,

Meghan Dixon.
                                 ______
                                 
                        Comment of Tami Djernes
    Date Submitted: Friday, May 18, 2012, 3:47 p.m.
    City, State: Nampa, ID
    Occupation: Registered Nurse/Food Coach
    Comment: I would like to stop the subsidies that help animal food 
industries--especially those involved in factory farming. We need to 
stop giving money to industries that damage the environment, worsen our 
health, and cause animals to suffer. I am in favor of helping small 
farmers that grow plant foods for people--and especially those that are 
organic and non-GMO. Food stamp programs should only pay for healthy 
foods such as whole grains, legumes, vegetables, fruits, nuts, and 
seeds. When food stamps are used to buy processed foods that are high 
in saturated fats, cholesterol, and sugars, this only worsens obesity 
and leads to more diabetes and cardiovascular disease. We need to stop 
subsidizing the foods that contribute to America's health crisis and 
start promoting sustainable agriculture and a greater emphasis on 
unprocessed plant-based foods.
                                 ______
                                 
                       Comment of Melba Dlugonski
    Date Submitted: Sunday, May 20, 2012, 3:14 p.m.
    City, State: Portland, OR
    Occupation: Botanist
    Comment: Don't let BigAg make the rules. Transparency. Right to 
know what's in food. Level the playing field for small, local 
producers. Don't privatize inspection services, or any function that 
leads to corruption. Reduce use of toxics in agriculture. Run every 
decision by the obligation to be good for the Earth and its 
inhabitants, not by the current profit-first yardstick. People have a 
right to informed choice.
                                 ______
                                 
                        Comment of Michael Dobbs
    Date Submitted: Saturday, May 19, 2012, 10:20 a.m.
    City, State: Austin, TX
    Occupation: Government
    Comment: Farmers feed both our country and the entire world. The 
best examples of farmers are those that grow for their local 
communities since the community can actually see their efforts. I 
recommend the full endorsement of all provisions of the Local Foods, 
Farms and Jobs Act (H.R. 3286).
    We need to prevent the degradation of our soils and plant life and 
prevent any kind of 1930s Dust Bowl-like environmental event. Please 
fully fund all conservation programs, such as the Conservation 
Stewardship Program, and making sure that enrollment in any new 
insurance subsidies are tied directly to compliance with conservation 
programs.
    We need to help develop the future of farming and ranching 
industries via the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    Everyone deserves to have access to products grown in a manner that 
is sustaining to the environment and their communities. Please maintain 
the EQIP Organic Initiative.
    Thank you for your time and please consider these important 
programs when developing any bills. Think about both the present and 
the future of this country.
                                 ______
                                 
                         Comment of Joan Dobkin
    Date Submitted: Saturday, May 19, 2012, 4:58 p.m.
    City, State: Milwaukee, WI
    Occupation: Artist
    Comment: I want small farmers to have a fair shake. I want to see 
organic farming supported. I want companies like Monsanto that pollute 
and destroy our absolutely essential bee colonies to fess up pay fines 
and stop using these harmful, deadly poisons.
                                 ______
                                 
                        Comment of Angel Dobrow
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: Northfield, MN
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: As a local food activist, and farm hand on a 20 organic 
farm that produces a wide variety of food, sold through numerous venues 
I feel strongly that our safe food future must include all willing and 
able to grow real food, non-commodity farming. I was pleasantly 
surprised to hear yesterday that the Dept of Ag is revising their 
previously held ideas about nutrition and will start considering 
portion size versus calories when calculating food value. The report I 
heard said this will lead to conclusions that non-fast food IS cheaper 
as well as better for you. In addition I support the following actions 
on the national level:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Let's agree, you do your job of representing the people of your 
district, and I will continue to do my job of growing and selling real 
food.
    Thanks so much.
                                 ______
                                 
                       Comment of Tina Dobsevage
    Date Submitted: Friday, May 18, 2012, 5:38 p.m.
    City, State: New York, NY
    Occupation: Physician
    Comment: As a physician, mother, daughter, wife and friend, I care 
about what I and my family and friends eat. We need farm policy that 
encourages family and organic farming and seed diversity. We need to 
end corn subsidies and support sustainable agriculture and animal 
husbandry for the sake of the health of all citizens.
                                 ______
                                 
                         Comment of Kim Dobson
    Date Submitted: Friday, May 18, 2012, 1:50 p.m.
    City, State: Olympia, WA
    Producer/Non-producer: Producer
    Type: Forestry
    Size: Less than 50 acres
    Comment: Don't let Congress cut $4 million from organic research 
funding and cut in half funding to support Beginning Farmers. Organic 
farming and Sustainable Agriculture are very important to the health of 
the agricultural land and health of the nation. Don't let Monsanto 
lobbyists walk all over informed intelligent choices. We know what is 
right for the health of our children and grandchildren.
                                 ______
                                 
                        Comment of Sean Dockery
    Date Submitted: Saturday, May 19, 2012, 11:02 a.m.
    City, State: Berkeley, CA
    Occupation: Cook
    Comment: Please change the way we support farmers in America. 
Current subsidies (especially on corn and soy) hurt farmers and help 
big corporations such as Cargill and General Mills who don't need our 
help for their profits!
                                 ______
                                 
                         Comment of Sara Dodson
    Date Submitted: Friday, May 18, 2012, 2:16 p.m.
    City, State: Chester, CT
    Occupation: Architect
    Comment: Corn is not the answer, nor are corn subsidies. Diversity 
of food is. Support more small farmers so we can be a more healthy and 
food independent nation.
                                 ______
                                 
                         Comment of Laura Doell
    Date Submitted: Sunday, May 20, 2012, 9:22 a.m.
    City, State: Townsend, MA
    Occupation: Teacher
    Comment: Please do what is right for the American citizens by 
promoting small farms, organic methods, and complete disclosure in 
labeling what we buy. Please ban GMOs from our food supply.
                                 ______
                                 
                         Comment of Amy Doering
    Date Submitted: Friday, May 18, 2012, 2:29 p.m.
    City, State: Venice, CA
    Occupation: Media Producer
    Comment: They health and purity of our food, water and air are of 
the most fundamental human rights. Please allow consumers the voice and 
process to securing healthy food and agricultural choices. The big 
companies should no longer dominate and control this process.
            Thanks,

Amy Doering.
                                 ______
                                 
                         Comment of Mary Doino
    Date Submitted: Friday, April 27, 2012, 11:51 p.m.
    City, State: Santa Fe, NM
    Occupation: Disabled Unemployed
    Comment: Hello,

    I live in public housing, along with a bunch of poor disabled and 
elderly people. Recently a food truck has shown up once a week. The 
elderly residents line up hours before the truck comes for food! They 
wait all morning and into the afternoon. There have been fights, there 
have been people taking food for their families it is crazy. These 
people rarely can afford fresh produce, most of them eat out of cans. 
Most are very unhealthy.
    Previously another do-gooder organization would bring a bag each 
containing expired eggs, not always though, a few old potatoes and 
sometimes a bag of commodities beans. The beans usually contained 
insects. These insects have infested many of the apartments here.
    Apparently you people in Congress having never missed a meal in 
your lives have no clue what goes on in America!
    Apparently potatoes rice and white bread are good for the poor, \1/
2\ of the food given out at these pantries is rotten! I actually 
received a box of 3 week old donuts! You probably think the poor should 
be grateful for such a handout! If one were to eat most of this 
garbage, they would get Diabetes, which is rampant here!
    Some of the senior get meals on wheels, another mess, No 
Nutritional value, occasionally mixed canned items, no protein, unless 
you count what is in one slice of cheap cold cut. The often serve rice 
and potatoes in the same meal, along with a slice of white bread. This 
is what they are giving seniors, I guess they are trying to kill them 
quicker. These meals add to the lack of nutrition of the poor! They add 
to the diabetes and other obesity related issues. The poor are eating 
the cheap garbage which will ensure that they will have more medical 
problems. It is disgusting. it is so sad to see elderly disabled 
people, who as I write this are waiting for the food truck! These 
people have to lose any shred of dignity, stand in line and fight over 
the food that may or may not be delivered!
    I have a spinal cord injury so I can't really wait in line, for an 
indefinite amount of time. I also do not like taking their handouts 
when some of these people need it so desperately they are willing to 
fight!
    I saw on the Internet that they are trying to pass another big farm 
bill that includes Billions to subsidize huge Companies, that are 
already profiting at our expense. Instead of subsidizing Healthy food, 
Big Agribusiness will get billions to force more garbage on the 
American People! Thanks to them we have an epidemic of obesity, 
Diabetes and other health issues! It is difficult to find descent food 
anymore unles you have transportation and the ability to pay! These 
diseases are costing this nation billions in Health Care alone, yet 
they continue to subsidize Big Agribusiness!
                                 ______
                                 
                        Comment of Elaine Dolan
    Date Submitted: Friday, May 18, 2012, 3:30 p.m.
    City, State: Shoreline, WA
    Occupation: LMT, Sole Proprietor
    Comment: Organic, clean (non-chemically treated), local (whenever 
possible) and Non-GMO foods are what are healthiest for our population. 
I urge you, as a constituent, to represent these preferences of mine.
                                 ______
                                 
                         Comment of Julia Dolan
    Date Submitted: Friday, May 18, 2012, 2:46 p.m.
    City, State: Minneapolis, MN
    Occupation: Work Order Coordinator
    Comment: The biggest need of the world right now is to be leaning 
ever more and more To/Towards organic farming and smaller, family owned 
farms--not Away from it. Please do not pass bills ending advocacy/
funding and research for the best thing that could happen to the human 
race (i.e., organic farming).
                                 ______
                                 
                        Comment of Rebecca Doll
    Date Submitted: Saturday, May 19, 2012, 10:48 a.m.
    City, State: Wimberley, TX
    Occupation: Writer
    Comment: I request that you support farm policy that sustains life 
biodiversity and next seven generations of Earthlings. Clearly, the 
biggest agricultural producers are only concerned with profit and not 
responsible land management. Please put your constituents before your 
own personal interest by refusing to support the farm bills presented 
by agribusiness and all the perks that go with doing their bidding.
                                 ______
                                 
                       Comment of Betty J. Dombek
    Date Submitted: Thursday, May 10, 2012, 7:39 a.m.
    City, State: Belmont, NY
    Occupation: Retired
    Comment: I truly believe these programs are vitally important to 
help feed families who are elderly, disabled, mothers w/children, 
people who cannot make it farming and living on farm. I feel the 
farmers work very hard to grow crops and their livestock. With the 
economy today and no jobs, unemployment, utilities raising costs; all 
these programs need to be in effect for our peoples of America.
    God Bless.
                                 ______
                                 
                       Comment of Sarah Domenick
    Date Submitted: Wednesday, May 02, 2012, 2:49 p.m.
    City, State: Philadelphia, PA
    Occupation: Student
    Comment: I would like to see this new farm bill shift more 
subsidies to organic, local, and small scale agriculture. The path 
we're on now, supporting only large scale commodity crops farms is 
unsustainable. We need to shift the focus to a more regional focus, 
allowing smaller farmers to grow produce that people can actually eat. 
The problem of hunger is not a problem of not having enough land or 
high enough productivity. It is a problem of poverty and inefficient 
use of land. To build a truly sustainable food system, this farm bill 
needs to make small scale, sustainable, organic agriculture 
economically feasible. Furthermore, I find it somewhat useless that a 
Federal bill controls agriculture for the entire country, one that has 
vastly different climates, topography, soil, etc. Perhaps more control 
should be relegated to states and counties in order to be more place-
appropriate.
                                 ______
                                 
                        Comment of Blake Donley
    Date Submitted: Friday, May 18, 2012, 9:05 p.m.
    City, State: Golden Valley, MN
    Occupation: Systems Analyst
    Comment: Do Not cut $4 million from organic research funding and 
cut in half funding to support Beginning Farmers. Support organic food. 
No one wants to continue to eat the poison that gigantic industrial 
farms are pouring onto supermarket shelves. The food system in the U.S. 
is a disgrace and the rest of the world knows it. It is absolutely 
pathetic what special interest has done to our food supply. The food is 
making U.S. citizens sick, big Pharma is creating drugs to ``treat'' 
all of these new chronic diseases, and the tax payer is picking up the 
tab while the U.S. Govt. plunges us further into debt to deal with the 
health care crises. Well done congressmen and women, well done.
                                 ______
                                 
                      Comment of Michael Donnelly
    Date Submitted: Sunday, May 20, 2012, 8:27 a.m.
    City, State: Lincoln, AL
    Occupation: Maintenance Electrician
    Comment: I think it is essential that consumers are given the 
option to choose to support their local farms. I feel that mandating 
Country of Origin Labeling is something we need to continue. Local 
sources of healthy food is an essential part of keeping communities 
strong.
                                 ______
                                 
                       Comment of Robert Donnelly
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: Silver City, NM
    Occupation: Wool Milling Consultant
    Comment: Committee members;

    I write you today as a consumer of agricultural products and a 
former worker in the field of milling agriculturally produced fibers 
(mainly wool). I am wanting to make sure that you as representatives of 
me (the people).
    I ask you to act to see that U.S. food and agricultural policy must 
focus on adopting best agricultural practices that put the health of 
its citizens, the land and the livelihood of farmers and farm workers 
over the interests of industrial agriculture lobbyists.
    I Endorse (and ask that you do the same):

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative

    In general, there's no need to kowtow to your international 
agribuisness corporations, even though you believe you have to to get 
re-elected. Corporations are Not people.
    We are the people, and I vote.
                                 ______
                                 
                        Comment of Jean Donohue
    Date Submitted: Thursday, May 03, 2012, 2:03 p.m.
    City, State: Portland, OR
    Occupation: Social Media Producer
    Comment: We need to support small-scale sustainable farming, local 
food infrastructures, farmland preservation, soil and water 
conservation.
    Subsidies should go to farms that are food for local and regional 
consumption. Price supports are needed for vegetables and fruit grown 
for local markets.
                                 ______
                                 
                       Comment of Elaine Donovan
    Date Submitted: Friday, May 18, 2012, 4:32 p.m.
    City, State: Hemlock, NY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I run a small vegetable farm which adheres to organic and 
sustainable practices. I am not alone as there are many small family 
farms in my area. Please do not cut funding for programs vital to our 
citizens health such as nutrition, conservation and support for organic 
and sustainable farming.
    It is morally reprehensible to allow Agribusiness to buy their way 
into writing the rules. We need a fair and healthy farm bill.
                                 ______
                                 
            Comment of S. ``Marguerite'' E . Donovan, C.S.J.
    Date Submitted: Friday, April 27, 2012, 11:05 a.m.
    City, State: Cohoes, NY
    Occupation: Retired Teacher
    Comment: The country was built on the back of small farmers. The 
U.S. Gov't. does not need to subsidize mega-agricultural enterprises, 
but Does need to support the small, family-run farms.
                                 ______
                                 
                       Comment of Shelley Doonan
    Date Submitted: Friday, May 18, 2012, 3:40 p.m.
    City, State: Covina, CA
    Occupation: Culinary Instructor Cal Poly Pomona
    Comment: It is my belief that everyone should have the ability to 
eat clean wholesome farm fresh foods. We should support family farmers 
and varied crops. So that we are as sustainable as possible, and able 
to provide for generations to come.
                                 ______
                                 
                        Comment of Terri Dorais
    Date Submitted: Friday, May 18, 2012, 12:40 p.m.
    City, State: Kingston, AR
    Occupation: Buyer
    Comment: It is very important to me that my family eats non-GMO & 
organic food, preferably by local farmers and that we quit polluting 
our land and water. I am really tired of industrial agro-businesses 
polluting our food & environment with toxic chemicals in the name of 
money. Farming with chemicals is not sustainable agriculture. I am 
hopeful that you will listen to the voice of the people and create a 
farm bill geared towards the health of people and the planet. Please 
support all provisions of the Local, Farms & Jobs Act (H.R. 3286), 
offer full funding to conservation programs like the Conservation 
Stewardship Program. Maintain the EQIP Organic Initiative and implement 
all the provisions of the Beginning Farmer & Rancher Opportunity Act 
(H.R. 3236). We need to move away from industrial farming and offer 
more opportunities to small organic farmers.
                                 ______
                                 
                         Comment of Tom Dorais
    Date Submitted: Friday, May 18, 2012, 1:05 p.m.
    City, State: Kingston, AR
    Occupation: Account Manager
    Comment: It is crucial to emphasize the nutritional values of 
sustainable organic production and shift from the high fructose corn 
syrup dominated food stream which is a main contributor to the obesity 
epidemic.
                                 ______
                                 
                        Comment of Naoma Dorety
    Date Submitted: Saturday, May 19, 2012, 10:45 a.m.
    City, State: Hopewell, NJ
    Occupation: Retired
    Comment: I raised three sons under 16 when my husband died and I 
was able to house and feed them since I had a steady job. It is 
incredible that a country with so much wealth and farms that we have 
people starving daily. I am retired, living on $25K. I support the food 
banks in my state, sponsor a child in South America one in Arkansas, 
USA, along with world hunger and USA food programs. What is wrong with 
our Congress that they don't support programs that allow our children 
and elder citizens to be cared for. I am ashamed that belly full 
Americans that try to save the world can't save America.
            Stressed,

N. Dorety.
                                 ______
                                 
                       Comments of Ellen Dorfman
    Date Submitted: Friday, May 11, 2012, 1:59 p.m.
    City, State: Olympia, WA
    Occupation: Single Mom
    Comment: Stop supporting huge agribusiness that grows one crop and 
uses tons of toxic pesticides and herbicides and kills everything from 
bees to you name it. Support small, sustainable and Organic farmers, 
Not GMO and Monsanto! Support local sustainable Healthy fresh foods, 
grown with less water and not toxic residues that Are killing 
everything from honey bees to the planet and people!
    Date Submitted: Friday, May 18, 2012, 3:33 p.m.
    Comment: We wanted to make sure that you knew about a new proposed 
rule that the USDA's Animal and Plant Health Inspection Service (APHIS) 
announced this week and about an opportunity for you to weigh in. USDA 
is proposing to revise its definition of retail pet store to close a 
loophole that has threatened the health and humane treatment of pets 
sold sight unseen over the Internet and via phone- and mail-based 
businesses.
                                 ______
                                 
                         Comment of Don Dotter
    Date Submitted: Friday, May 18, 2012, 2:05 p.m.
    City, State: Moss Beach, CA
    Occupation: Founder Farm Organics
    Comment: Balance as in the scales of justice should be the realized 
model for our food system. Good nutritional food comes from healthy 
seeds. People benefit when they realize that food is actually medicinal 
in its foundation. Organic fruits and vegetables would be and should be 
the foundation of our food system. Keep the GE's and the GMO's away 
from our citizens and seek the balance we need for a healthier 
citizenry and a healthier economy. Yes this is a national security 
issue, I believe.
                                 ______
                                 
                     Comment of J. Kelly Dougherty
    Date Submitted: Friday, May 18, 2012, 2:12 p.m.
    City, State: Kansas City, KS
    Occupation: Facilities
    Comment: You want a healthy county, out large agriculture business 
threaten that on a daily basis. You are against coverage for the poor 
and middle class, well if our farm and food standards were strong, we 
wouldn't have some of them medical issue that we have today. We as 
consumers have a right to be protected from corporations whose only 
concern is the bottom dollar and not the health of the people they sell 
too. Please, if you are for your constituents, it is important that to 
do what is right for the consumer and the small farmers, the ones who 
work very hard and help to make this country not with Big Business!
                                 ______
                                 
                        Comment of Joyce Doughty
    Date Submitted: Sunday, May 20, 2012, 2:05 p.m.
    City, State: Greeneville, TN
    Occupation: Retired
    Comment: I chair a local non-profit dedicated to conserving family 
farms and eating local products. We are deeply concerned about the 
Conservation Stewardship Program and its proper implementation, the 
Beginning Farmer and Rancher Opportunity Act and all things organic and 
local.
    Please make sure the farm bill protects our local farms and 
farmers--not mega-corporate agribusiness.
    Thank you for considering my views.
                                 ______
                                 
                        Comment of Carol Douglas
    Date Submitted: Friday, May 18, 2012, 7:57 p.m.
    City, State: Phoenix, AZ
    Occupation: Retired Social Worker
    Comment: Please break the stranglehold that agribusiness has on our 
food supply. Please support our family farms especially those producing 
organically grown crops!
                                 ______
                                 
                       Comments of Dianne Douglas
    Date Submitted: Friday, May 11, 2012 11:48 a.m.
    City, State: Phoenix, AZ
    Occupation: Code Compliance
    Comment: We need a bill that will put our small individual farmers 
back to work. We need organic healthy food from these farms. No more 
factory farms that steals from the poor small farmers and that produce 
unhealthy food. Stop stealing from the poor and giving to the rich.
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    Comment: Bring back the small family farms and organic farming. The 
factory farms are making the American people sick. They are polluting 
our air, water and land.
                                 ______
                                 
                       Comment of Doretha Douglas
    Date Submitted: Friday, May 18, 2012, 11:35 a.m.
    City, State: Lithonia, GA
    Occupation: Student
    Comment: It is important to the existence of the population to have 
access to food that is, nourishing, affordable, ungenetically modified, 
treated humanely and untainted and have this idea backed by the Federal 
government. I would think you would only want to serve family and 
friends the best food afforded by you, and that is all we want for 
ourselves. I would appreciate your understanding on this important 
matter.
                                 ______
                                 
                        Comment of Therese Dowd
    Date Submitted: Saturday, May 19, 2012, 8:59 a.m.
    City, State: Akron, OH
    Occupation: Retired Nursing Faculty
    Comment: Support for local food systems (not the mega control 
agribusinesses) is necessary for continued growth of the local farm 
scene. This approach supports the economy of local communities, reduces 
costs for transportation, and enhances quality of life in this country 
of ours by vitalizing the areas in which we live. Businesses that are 
currently thriving should be able to function with reduced levels of 
support and businesses that are starting up should receive the help. We 
count on your leadership to ensure that sustainable, local, safe, and 
clean food is available in our local regions. Thank you for your 
ongoing commitment to the well being of your constituents.
                                 ______
                                 
                         Comment of Perry Dowdy
    Date Submitted: Thursday, March 22, 2012, 8:33 p.m.
    City, State: Pulaski, VA
    Occupation: Disabled Veteran
    Comment: I am the Director of a food bank in Radford VA,
    I need all the food that the USDA can give Feeding America 
Southwest Virginia. I have people needing food for their Families. We 
have so many people out of work and a lot that is not counted in the 
unemployed ranks. This country is going down faster that a feather 
falling. This government is not thinking of the jobless people.
    So please write a farm bill that gives more money than before. Keep 
The Money At Home.
    Thank you . . .
                                 ______
                                 
                        Comment of Maria Dowell
    Date Submitted: Wednesday, May 09, 2012, 7:25 a.m.
    City, State: Longwoog, FL
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Don't cut any founds to those who need food, many farmers 
donate food to local food pantry to help feed the homeless and the 
hungry. Seminole County is in need of this local farmers to supply 
fresh produces to the families in need.
                                 ______
                                 
                       Comment of Kevin W. Downer
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Farmington, PA
    Occupation: College Professor
    Comment: Please explain to me when common sense and the needs and 
wants of everyday Americans are going to start taking precedence over 
money, lobbyist and corporate greed. Stand up, make a statement, say no 
to this crap and vote for this farm bill. Do what is right for a change 
and not what most benefits you and the rich and powerful. Remember why 
you were voted into office for which is to represent the interests of 
the American people and the people and farmers of western PA. Thank you 
for your time and hopefully grave concern regarding the food supply of 
this nation.
            Sincerely,

Kevin W. Downer.
                                 ______
                                 
                         Comment of John Downey
    Date Submitted: Friday, May 18, 2012, 7:41 a.m.
    City, State: Margaretville, NY
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: We need a strong farm bill that supports and encourages 
farming to continue and to grow in the USA. My wife and I are new to 
farming and are struggling to make it a viable business. Attempts to 
grow using USDA grants is not happening as the funding is usually 
provided to larger established farms. That system is not helping the 
new farmer the way it should.
                                 ______
                                 
                       Comment of Margaret Doyle
    Date Submitted: Friday, May 18, 2012, 1:00 p.m.
    City, State: Norwood, MA
    Occupation: Healthcare
    Comment: The subsidized insurance program Congress proposes to 
replace direct payments to commodity farms will allow giant commodity 
farmers and insurance companies to walk away with billions in taxpayer 
dollars while putting the land, soil and environment at greater risk. 
We need real subsidies to vegetable and fruit farmers who grow organic 
and/or use less harmful pesticides on the land. Presently only .37% of 
total farm subsidies go to vegetable farmers while 73.8% go to meat and 
dairy farms. If government is serious about eliminating obesity in the 
country, it must redirect allocations to help produce a healthier food 
supply for all of us. Commodity farmers are not the answer for a 
healthy America.
                                 ______
                                 
                        Comment of Gillian Drake
    Date Submitted: Friday, May 18, 2012, 7:03 p.m.
    City, State: North Eastham, MA
    Occupation: Publisher
    Comment: We need a farm bill that supports smaller producers and 
those who grow REAL FOOD, not wheat, corn and soy, and animals raised 
in CAFOs--which are largely responsible for the obesity and ill-health 
of America's people. If we cut refined foods out of our diets, we will 
all be healthy people, and will save billions of dollars on health 
care. By voting for a Sane farm bill that supports quality food, 
organic food, locally-produced food, you will be doing what you have 
been elected to do: protect and nurture the citizens of this great 
country, not the corporations that profit from processed foods made 
with the cheapest ingredients, thanks to subsidies, drenched in 
pesticides and then refined so that there is no nutrition left in them.
    A Sane farm bill will help lower health care costs in America and 
ensure that our next generation grows up to be healthy, strong and can 
carry America forward. Otherwise, it will be the end of America. It's 
that simple. Thank you for doing the right thing for America.
                                 ______
                                 
                     Comment of Christiane Drapkin
    Date Submitted: Friday, May 18, 2012, 1:27 p.m.
    City, State: Rockville, MD
    Occupation: Musician
    Comment: I've supported local small growers and organic farm for 
the past 30 years. We need true support for small, independent farmers 
to grow healthy food. We want to feed our families right.
                                 ______
                                 
                       Comment of Anna Drechsler
    Date Submitted: Thursday, May 17, 2012, 12:23 p.m.
    City, State: Des Plaines, IL
    Occupation: Retired Teacher and Urban Organic Gardener
    Comment: 2012 Farm Bill has to reflect what America needs today. It 
must contain support structure for family owned farms, which will 
produce healthy, wholesome food (vegetables, fruit, meat and dairy) 
extremely important to stop epidemic of obesity in U.S., will produce 
sustainably to preserve healthy soil, water and quality of air. 
Prosperous family farms will grow jobs and well being in their 
communities and provide better future for next generation of farmers 
and rural workers.
                                 ______
                                 
                        Comment of Anne Drehfal
    Date Submitted: Friday, May 18, 2012, 2:38 p.m.
    City, State: Whitewater, WI
    Producer/Non-producer: Producer
    Type: Fruits, Vegetables
    Size: Less than 50 acres
    Comment: I am a beginning organic produce farmer starting up a 
Community-Supported Agriculture (CSA) farm in Whitewater, WI, called 
Regenerative Roots. We will sell our produce directly to our farm 
members through a produce subscription process and at a local Farmers' 
Market. Even though we are new to this community, we have sold out mid-
April of our CSA shares for the season; there is a need for fresh 
organic produce in this community and our members find it important to 
be connected to where their food is coming from for food safety, 
community-building, economic, and environmental reasons. We are 
committed to a highly diverse ecology for producing food which 
encompasses perennials, livestock, and fungi alongside annual vegetable 
production. We envision the farm as an educational space for ourselves 
and the community. We would like to keep the farm at a manageable size, 
where we can observe and participate in all of its aspects. We believe 
all of these values will help produce high quality food to nourish the 
land, ourselves and our neighbors in an ecologically regenerative and 
economically sustainable way.
    At Regenerative Roots our primary mission is to be a responsible 
steward of the soil, because healthy soil is what brings forth healthy 
life. Our topsoil is this nation's #1 export (in tonnage) and if we 
don't strive to change our farming practices to focus on soil health 
and retention, this country will have major food security issues in the 
future. In 1997, 1.9 billion tons of soil eroded from U.S. land, 
reports the National Resources Inventory of the USDA (http://
css.snre.umich.edu/css--doc/CSS00-04.pdf).*
---------------------------------------------------------------------------
    * The document referred to is retained in Committee file.
---------------------------------------------------------------------------
    This equals a truckload of topsoil, escaping via the Mississippi 
River every 3-10 seconds, depending on the time of year. I think this 
is fact that is rarely discussed amongst farm bill conversations. We 
should change that with the 2012 Farm Bill.
    Long-term planning for our country's fertile soil needs to be a 
priority over profit, although with sustainable agriculture they can be 
realized together. For this reason, I am incredibly supportive of the 
conservation measures and resources that the USDA has made accessible 
to farmers through the Environmental Quality Incentives Program, 
Conservation Stewardship Program, and Cooperative Conservation 
Partnerships Initiative. These programs work together to assist farmers 
protect and rebuild soil, provide clean water and wildlife habitat, and 
supply other environmental benefits, while maintaining vibrant and 
productive farms and ranches.
    As a Young Farmer, entering the world of agriculture as most of our 
nation's farmers are retiring, I urge members if Congress to support 
both the Beginning Farmer and Rancher Opportunity Act and the Local 
Farms, Food, and Jobs Act.
    The Beginning Farmer and Rancher Opportunity Act will invest in the 
next generation of American producers by:

  <bullet> Enabling access to land, credit, and crop insurance for new 
        producers

  <bullet> Assisting new producers to launch and strengthen new farm 
        and value-added businesses

  <bullet> Helping new producers become good land stewards

  <bullet> Providing training, mentoring, and research that beginning 
        farmers and ranchers need to be successful

  <bullet> Conducting outreach on agricultural job opportunities for 
        military veterans

    In my experience, the biggest hurdle to starting our own farm was 
access to land--a search that took over 2 years. This first season we 
are renting land, but as we invest in sustainable perennial crops it is 
important to us to have a solid long-term lease or access to FSA loans. 
In southern Wisconsin, we are blessed to have many organic farming 
mentors and organizations that strive to share knowledge and resources 
about sustainable methods. This Act could help to provide a similar 
support system for Beginning Farmers across the nation.
    The Local Farms, Food, and Jobs Act will drive economic growth by:

  <bullet> Creating economic opportunities for farmers and ranchers 
        through local and regional markets

  <bullet> Improving processing and distribution infrastructure for 
        local and regional agriculture

  <bullet> Expanding access to healthy food for consumers, including 
        underserved communities

  <bullet> Providing research, training, and information that farm 
        entrepreneurs need to be successful

    Our country needs strong resilient communities to survive the 
uncertainties of the future. Strong local food systems, healthy Main 
Streets, community gathering places, and dynamic neighborhoods are all 
components of resiliency. Local and regional agriculture is a major 
economic driver in the farm economy. There are now more than 7,000 
farmers markets throughout the United States--a 150 percent increase 
since 2000, direct to consumer sales have accounted for more than $1.2 
billion in annual revenues. Now, on the heels of that expansion, we are 
witnessing the rapid growth of local and regional food markets that 
have scaled up beyond direct marketing. Together these markets 
represent important new job growth and economic development.
    I urge you to join your colleagues and support both the Beginning 
Farmer and Rancher Opportunity Act and the Local Farms, Food, and Jobs 
Act, as well as the Environmental Quality Incentives Program, 
Conservation Stewardship Program, and Cooperative Conservation 
Partnerships Initiative in the writing of the 2012 Farm Bill. These 
programs are incredibly important to the survival of young and 
sustainable farmers across Wisconsin and the agricultural heritage of 
our incredible state. They also account for such a small portion of the 
farm bill budget overall, but will help to guarantee healthy food, 
water, and soil for years to come.
    Thank you for providing an opportunity to share my views on the 
upcoming farm bill,

Anne Drehfal.
                                 ______
                                 
                      Comment of Carol Dreibelbis
    Date Submitted: Friday, May 11, 2012, 11:20 a.m.
    City, State: Arlington, VA
    Occupation: Nonprofit
    Comment: We need a farm bill that makes healthy food widely 
available to all Americans--including schoolchildren--to combat the 
growing obesity epidemic! We must provide flexibility for states to use 
existing food procurement programs to purchase fresh, healthy food from 
local farmers and ranchers.
    We also need a farm bill that protects our natural resources--
protect the Conservation Stewardship Program from unfair funding cuts, 
and improve it by ranking applications solely on their conservation 
benefits. Farmers count on CSP and other conservation programs to 
conserve soil for future generations, keep water and air clean, and 
create habitat for wildlife--all while farming profitably.
                                 ______
                                 
                       Comment of Merlin Dresher
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Canton, KS
    Producer/Non-producer: Producer
    Type: Fruits, Greenhouse/nursery, Specialty Crops, Vegetables, 
Other
    Size: Less than 50 acres
    Comment: Consumers are demanding more locally grown organic fruits 
and vegetables. It is not easy for young farmers to get started without 
some assistance. The farm bill needs to provide for this, including 
helping families have access to healthy whole foods. Processed foods 
have victimized our society to a couple generations of obesity and 
diabetes, through ill advised USDA catering to large food processing 
corporations.
                                 ______
                                 
                        Comment of Randi Dresner
    Date Submitted: Tuesday, March 20, 2012, 11:24 a.m.
    City, State: Hauppauge, NY
    Occupation: President & CEO, Island Harvest
    Comment: Public Comments to the House Agriculture Committee

Farm Bill 2012
Island Harvest

    Please consider the following comments on behalf of the over 
283,000 Long Islanders who rely on the Island Harvest network for food 
assistance.
    As the Committee continues to engage in debate on the 2012 Farm 
Bill, I urge Members to enhance support for Federal nutrition programs 
like the Supplemental Nutrition Assistance Program (SNAP), The 
Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP). On Long Island alone, 85.1% of 
pantries, 59.7% of kitchens, and 71.0% of shelters receive food from 
TEFAP, approximately 11,000 Long Island seniors receive food packages 
through CSFP each month, and over 100,000 Long Islanders help feed 
their families with SNAP benefits.
    SNAP alone has extraordinary strengths:

  <bullet> SNAP's accuracy rate of over 96% is at an all-time high and 
        is considerably higher than many other Federal benefit 
        programs. SNAP error rates declined by \3/5\ from FY 1999 to FY 
        2010.

  <bullet> SNAP's responsiveness to unemployment proved it to be one of 
        the most effective safety net programs during the recent 
        recession, providing families with a stable source of food. As 
        the number of unemployed people increased by 94% from 2007 to 
        2011, SNAP responded with a 70% increase in participation over 
        the same period.

  <bullet> SNAP benefits are spent quickly--97 percent of benefits are 
        redeemed by the end of the month of issuance--thereby 
        bolstering local economies. Moody's Analytics and USDA estimate 
        that the economic growth impact of SNAP ranges from $1.73 to 
        $1.79 per $1 of SNAP benefits.

  <bullet> SNAP is targeted to go to the neediest and most vulnerable 
        people in our country. The average household has an income of 
        only 57% of the Federal poverty guideline and 84% of all 
        benefits go to households with a child, senior, or disabled 
        person.

  <bullet> SNAP lifted 3.9 million Americans above the poverty line in 
        2010, including 1.7 million children and 280,000 seniors.

  <bullet> SNAP relieves pressure on overwhelmed food banks, pantries, 
        religious congregations and other emergency food providers 
        across the country who could not begin to meet the need for 
        food assistance if SNAP eligibility or benefits were reduced.

    For the growing number of Long Islanders at risk of hunger, food 
banks are truly the first line of defense and many times the only 
resource standing between them being able to put food on the table or 
going to bed with an empty stomach. However, the charitable food 
assistance network cannot meet the needs of these families alone. It is 
only through our public-private partnership with effective programs 
like SNAP and other programs in the nutrition safety net that we can 
truly end hunger on Long Island.
                                 ______
                                 
                        Comments of Gail Dressel
    Date Submitted: Friday, May 18, 2012 12:58 p.m.
    City, State: Pine Grove, PA
    Occupation: Advocate
    Comment: We need more and better farming not factory farms who are 
destroying the environment our health and all the pain and suffer by 
them practicing and getting away with animal abuse because someone 
thinks farm animals feel no pain and aren't worthy of help . We need 
better humane methods to raise farm animals in and you need to step it 
up. Other countries are so far ahead of us and give the animals room 
and better care because they know they are animals at their mercy why 
don't we do it.
    Date Submitted: Friday, May 18, 2012, 12:14 a.m.
    Comment: We need more farmers and get rid of factory farms its 
destroying our health and hurting animals and environment time for a 
change. No
                                 ______
                                 
                         Comment of Linda Drew
    Date Submitted: Monday, May 14, 2012, 12:46 p.m.
    City, State: Cedar Lake, IN
    Occupation: Self-Employed Auto Repair Business
    Comment: I would like to encourage you to support a 2012 Farm Bill 
that expands opportunities for family farmers to produce good food for 
our communities. A bill that makes healthy food widely available to all 
Americans! We must provide flexibility for states to use existing food 
procurement programs to purchase fresh, healthy food from local farmers 
& ranchers. Thank you for your careful consideration of this matter.
                                 ______
                                 
                       Comment of Kelly Driscoll
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Norman, OK
    Occupation: Marketing/Planning
    Comment: I am currently attending a beginning farmers program run 
by the Kerr Center for Sustainable Agriculture. My husband and I hope 
to start a small scale farm in the next 3 to 5 years. I ask you to 
consider the needs of the small, sustainable producer and end commodity 
subsidies. Please create real agricultural risk coverage for the small-
scale producers of diverse vegetable crops, and continue to support 
beginning farmer training and grant programs.
                                 ______
                                 
                        Comment of Theta Drivon
    Date Submitted: Saturday, May 19, 2012, 2:31 p.m.
    City, State: Asheville, NC
    Occupation: Teacher
    Comment: I believe our country needs true Food Security through 
support for organic (pesticide-, herbicide-, hormone-, and GMO-free) 
agriculture, small farms, nutrition education based on science and 
tradition not corporate interest, and conservation of wild places.
                                 ______
                                 
                          Comment of Ben Droz
    Date Submitted: Friday, May 18, 2012, 7:10 p.m.
    City, State: Pittsburgh, PA
    Occupation: Photographer
    Comment: Agriculture subsidies are far too high in our economy. The 
farm bill should subsidize struggling farms, sustainable agriculture, 
things that science says we should work towards and things that are 
already too expensive. It is offensive that taxpayer dollars subsidize 
a corn surplus which changes our food supply. Doctors and scientist 
agree, this is wrong. Change the subsidy structure to help family 
farms, not mega farms.
                                 ______
                                 
                        Comment of Julie du Bois
    Date Submitted: Friday, May 18, 2012, 5:28 p.m.
    City, State: West Hills, CA
    Occupation: Mortgage Workout
    Comment: I am disgusted that Congress has voted to slash $33 
billion from the food stamp program while leaving farm subsidies 
unscathed.
    I do not believe in agribusiness. They are poisoning our natural 
resources and they are harming animals. I believe the assistance should 
go to Family Farms and organic research funding to support Beginning 
Farmers.
    The Senate Ag Committee has voted to get rid of wasteful subsidy 
payments. It has proposed to replace it with a new subsidized insurance 
program that leading sustainable agriculture advocates are calling rife 
with opportunities for fraud and abuse.
    Please support the family farms, not agribusiness. We need healthy, 
meaningful assistance to those whose lives are entrenched in their 
family farms. They are our American Heroes--along with our teachers, 
firefighters and nurses!
                                 ______
                                 
                        Comment of Federico Duay
    Date Submitted: Friday, May 18, 2012, 5:00 p.m.
    City, State: Rye, NY
    Occupation: Teacher
    Comment: Please end subsidies to large corporations, they already 
have enough money to do their job. Instead please support lox cal 
farmers, who employ American people. Thank you!
                                 ______
                                 
                         Comment of Thomas Dubs
    Date Submitted: Wednesday, May 16, 2012, 10:19 a.m.
    City, State: Finleyville, PA
    Occupation: Associate Director
    Comment: Feeding our neighbors is a public-private partnership many 
private organizations are doing their part but they cannot fight this 
battle against hunger without our government's help. Cutting anti-
hunger programs will increase hunger in America, as well as the 
associated health care, educational, and economic costs of food 
insecurity and poor nutrition. Please remember the families who are 
struggling in our community and protect and strengthen important anti-
hunger programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization.
                                 ______
                                 
                       Comment of Rosemary Dudley
    Date Submitted: Sunday, May 20, 2012, 5:15 p.m.
    City, State: Oakland, CA
    Occupation: Jeweler
    Comment: My family has owned a small farm in Missouri for four 
generations. We would like the farm bill to focus on programs that aid 
small farmers, organic and sustainable farm practices, nutrition, and 
the Conservation Resource Program, in particular.
                                 ______
                                 
                        Comment of Connor Duffy
    Date Submitted: Sunday, March 25, 2012, 8:14 p.m.
    City, State: Norwood, PA
    Occupation: Student, Box Office Clerk
    Comment: You must eliminate subsidies that unfairly aid 
agribusiness farmers over small, family, and subsistence farmers. More 
importantly, stop subsidizing crops that are financially unsustainable. 
There are many cash crops that can be grown cheaper elsewhere in the 
world. Millions of dollars of subsidies wastes taxpayer dollars while 
disadvantaging those in developing countries.
    We are a country built on the back of powerful agriculture--a 
financially unsustainable cotton industry which relied upon slave 
labor. The subsidies, as well as looser wage restrictions for farm 
workers, has replaced that system. But it must stop.
    Use the money for subsidies to buy seeds and tools for more 
financially sustainable crops. The billions of dollars of subsidies 
could instead go to re-training farmers into more sustainable 
practices.
                                 ______
                                 
                         Comment of Merci Duffy
    Date Submitted: Friday, May 18, 2012, 3:39 p.m.
    City, State: Milwaukee, WI
    Occupation: Self-Employed
    Comment: A farm bill that stresses organic, local and sustainable 
farming over corporate interests benefits not only the health of our 
bodies, but the health of our country and economy. I urge you to help 
us reach our forward thinking goals!
                                 ______
                                 
                       Comment of Michelle Dugan
    Date Submitted: Friday, May 11, 2012, 10:50 p.m.
    City, State: Upper Darby, PA
    Occupation: Retired
    Comment: Industrial agriculture is destroying our health and our 
children's future. The farm bill must preserve the Earth to sustain 
life. Development aid to the poor must be preserved as well.
                                 ______
                                 
                         Comment of Alice Dugar
    Date Submitted: Sunday, May 20, 2012, 12:04 p.m.
    City, State: Independence, OH
    Occupation: Educator
    Comment: I rely on healthy, pesticide-free, GMO-free, organically-
grown food that is sustainably produced with great respect for the 
land, water and air that creates that food and with the assistance and 
dedication of farmers who take pride in their farms and work beyond the 
solitary goal of profit. Create a farm bill that has this goal at the 
core of its content.
                                 ______
                                 
                         Comment of Eric Duggan
    Date Submitted: Saturday, May 19, 2012, 3:02 a.m.
    City, State: West Sacramento, CA
    Occupation: Govt.
    Comment: Rep. Thompson, your constituents are watching closely 
especially to see if the subsidies for millionaire farmers are 
continued. Also, the cat is out of the bag, so give up the cozy 
relationship with Monsanto. It really is quite disgusting.
                                 ______
                                 
                        Comment of Phyllis Dujon
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Newnan, GA
    Occupation: Retired Nurse
    Comment: It is time to stop giving huge subsidies to the corporate 
farms. They are putting our food at risk with the addition of 
antibiotics in animal feed and the huge amount of pesticides that are 
used plus the addition of growth hormones that are added. Our nation is 
not a healthy nation and it has nothing to do with fast food. We need 
to be able to eat pure wholesome food.
                                 ______
                                 
                        Comment of Kimberly Duke
    Date Submitted: Saturday, May 19, 2012, 6:43 a.m.
    City, State: Millburn, NJ
    Occupation: Statistician
    Comment: Good quality food for everyone in the USA is possible. I 
believe the food we eat has more impact on our health than any other 
lifestyle choice.
    We're depending on you to make the right choice for all of us. 
Thanks.
                                 ______
                                 
                        Comment of Michele Dunaj
    Date Submitted: Friday, May 18, 2012, 11:35 p.m.
    City, State: Old Lyme, CT
    Occupation: Freelance Editor
    Comment: Americans are suffering because of factory farms and 
agribusinesses who put the almighty dollar before our health. We need 
to support organic farming practices and small farmers--Not big 
business.
                                 ______
                                 
                        Comment of Vicki Dunaway
    Date Submitted: Friday, May 18, 2012, 9:56 p.m.
    City, State: Lincoln City, OR
    Occupation: Postal Worker/Former Farmer
    Comment: My husband and I have retired from small-scale farming, 
but we certainly did not feel we got much support from the government 
while we were farming, other than some help from Extension personnel 
(once they finally figured out organics were not a fad). How about some 
real change? Instead of supporting a farm bill that gives Big Ag lots 
of cash to produce stuff that is already produced in massive surplus, 
why not support folks who are growing things that are healthier and 
more labor-intensive? Make it easier for small farmers to bring healthy 
foods into inner cities and other food deserts! Link food stamps and 
unprocessed foods, with voluntary food preparation classes for those 
receiving food stamps. Label GMO products so people can have enough 
information to make decisions about them.
    Finally, stop harassing raw milk producers. What is the point of 
that? There are far fewer people made ill every year by raw milk than 
by dog bites, but I don't see anyone calling for abolition of pet dogs.
                                 ______
                                 
                        Comment of Kathy Dundee
    Date Submitted: Friday, May 18, 2012, 9:24 a.m.
    City, State: Austin, TX
    Occupation: Assistant Division Director, Education Association
    Comment: Food, pretty much an essential for living. Healthy living 
is directly influenced by the kinds of food one eats, so the healthier, 
better the food, the better health for the person. Over-use of 
chemicals, pesticides, etc. directly links to increases in cancer, etc. 
It's a no-brainer that we, as a nation, should be doing everything we 
can to maintain a healthy, chemical-free food supply.
                                 ______
                                 
                       Comment of Allison Dungan
    Date Submitted: Friday, May 18, 2012, 9:29 a.m.
    City, State: Madison, WI
    Occupation: Researcher
    Comment: The agricultural track that we are on is not one that is 
reasonable in the long run. Instead of encouraging our farms to be 
natural treasures and a source of food that nourishes our nation 
(including our soils, water, and air) the farm bill supports policies 
that are currently seeing massive amounts of conservation land tilled 
under in place of more rows of corn. Please make changes to the subsidy 
structure, and for goodness sake let's get some more support for 
organic agriculture. I would also suggest that less focus be put on 
crop insurance--that policy is encouraging people to farm on marginal 
lands that should not be tilled. If we don't make a change this farm 
bill will be supporting a form of stealing--we are stealing the 
resources of fertile soil, and clean water from our future farmers.
                                 ______
                                 
                       Comment of Patricia Dunham
    Date Submitted: Sunday, May 20, 2012, 2:42 p.m.
    City, State: Eugene, OR
    Occupation: Retired Librarian
    Comment: Corporations are Not people, or farmers! The farm bill 
should support organic & family farmers--operations that produce safe, 
low carbon food; Not factory meat operations and corn and soy 
monocultures that destroy our soil, waste our precious, increasingly 
scarce water, and poison us with fertilizer, insecticides, pesticides, 
etc.! Not untested GMO organisms--USDA is Fools for taking manufacturer 
testing results!
                                 ______
                                 
                        Comment of Ginger Dunlap
    Date Submitted: Saturday, May 19, 2012, 9:43 a.m.
    City, State: Bakers Mills, NY
    Occupation: Retired Teacher
    Comment: My representative is not likely to listen to, or be swayed 
by, any plea of this sort. Whenever I've addressed him to similar 
problems, his answers have always skirted around it with a smooth 
political statement.
                                 ______
                                 
                      Comment of Timothy Dunleavy
    Date Submitted: Friday, May 18, 2012, 9:31 p.m.
    City, State: State College, PA
    Occupation: Retail Management and Home Gardener
    Comment: I am distressed that Federal Programs effecting my 
community may be cut. I have witnessed an explosion in small scale food 
production that has brought jobs and revenue into my county. I know 
many small farmers who would benefit from H.R. 3286 and H.R. 3236 as 
well as the Conservation Stewardship and EQIP Organic Initiatives.
    It is disappointing to realize that billions will be cut from 
actual food production to bump up the subsidies for Industrial 
Agriculture to nearly $123 billion. Americans eat too much industrial 
food and have the health problems to prove it.
    The small amounts being asked to promote smaller scale sustainable 
and organic growers are an investment in the future of Agriculture, and 
key to getting new blood onto the farms. The old system is dying with 
the elderly farmers who make up the bulk of today's producers. It is 
imperative we continue the programs that support the new generation of 
food producers that we so desperately need.
                                 ______
                                 
                        Comment of Hollis Dunlop
    Date Submitted: Friday, May 18, 2012, 9:12 a.m.
    City, State: Marion, MA
    Occupation: College Student
    Comment: More than a handful of Congress members need to have input 
about this bill. It is one of the most important yet least citizen 
involved decisions made in the U.S. every 5 years. Please make changes 
that support local farms and communities and reduce the amount of 
subsidies to agribusiness giants.
                                 ______
                                 
                         Comment of Cheryl Dunn
    Date Submitted: Friday, May 18, 2012, 5:53 p.m.
    City, State: Austin, TX
    Occupation: Finance & Accounting
    Comment: As a supporter of my local food bank, I am writing to 
share my concern about hunger in Texas. With unemployment still high 
and many Americans still struggling to make ends meet, anti-hunger 
programs are helping many of our neighbors just put food on the table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance.
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP), The 
Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP), all of which are authorized in the 
farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization.
    Hunger is unacceptable.
    Thank you for your action!
                                 ______
                                 
                         Comment of Wesley Dunn
    Date Submitted: Friday, May 18, 2012, 11:11 a.m.
    City, State: Gloucester, MA
    Occupation: Student
    Comment: As a soon-to-be student of ecological agriculture at the 
University of Vermont and a worker on a biodynamic farm in New York in 
the summer, I implore you to take steps in this latest edition of the 
farm bill to lead our country from industrial-based agriculture to the 
more financially, environmentally and socially sustainable option of 
local food production. When I work in the summer and when I study in 
school, I intend to be doing this personally. I urge you to do the same 
at your level. When I leave school, I want to be a farmer. Not a 
monocrop producer enslaved to a contract; a farmer, overseeing a 
diverse crop, feeding and supporting my local community, respected and 
admired for the skill and expertise I will have built, that the work 
will require. I know I'm not the only 18 year old in this country with 
such a dream. Please, help make our futures, and that of our country 
brighter.
                                 ______
                                 
                       Comment of Shawn Dunnagan
    Date Submitted: Saturday, May 19, 2012, 2:45 p.m.
    City, State: Boise, ID
    Occupation: Registered Dietitian and Professor
    Comment: Please take the time to better understand the connection 
between the health of American citizens, our environment and our food 
system. We need to reconsider the negative effects of the large 
agribusinesses on food and health and help smaller, organic farmers 
rebuild local, sustainable economies. Everyone wins in this 
restructuring!

Shawn Dunnagan.
                                 ______
                                 
                       Comment of Jennifer Duster
    Date Submitted: Thursday, May 17, 2012, 5:53 p.m.
    City, State: Solon, IA
    Producer/Non-producer: Producer
    Type: Fruits, Greenhouse/nursery, Poultry/poultry products, 
Specialty Crops, Vegetables, Other
    Size: Less than 50 acres
    Comment: This country (and especially Iowa) needs a farm bill that 
addresses the shift in the food culture. More and more people want to 
know where their food is coming from and who grows it, but the large 
corporate farms are resistant to this change and obstruct it any way 
they can. Iowa used to be a state made up of proud family farmers, now 
there is homestead after homestead standing empty or being torn down to 
make way for more ``mega farms'' that pollute our countryside and ruin 
the communities. Help form a food bill that will apply to and help 
small farmers succeed and grow. We don't need corn and soybean 
subsidies . . . we need grants for new farmers to get started building 
their farms and helping to market their produce to customers. The food 
pyramid has changed and will continue to change. We need legislation 
that reflects what the people want . . . not what corporate interests 
want.
                                 ______
                                 
                         Comment of Mary Duvall
    Date Submitted: Friday, May 18, 2012, 5:14 p.m.
    City, State: Clatskanie, OR
    Occupation: Retired
    Comment: I want organic foods. I want no GMO food. I want no 
pesticides in my food. I want 2,4-D off the market, as well as roundup 
and all other crap that kills and pollutes our environment banned 
permanently.
    I want industrial forests not to use pesticides and herbicides when 
there are people living within breathing distance of those forests. I 
want open burning of forest clear cuts banned permanently. I want 
practices that provide clean air, unpolluted waters/air/soil. I want 
the wholesale destruction of our planet to stop. I want you to take the 
responsibility given to you by the people of this country to take care 
of the shared blessings of air, water, soil, plants and animals.
    I want you to stop supporting Monsanto, Dow and other chemical 
companies, not allowing employees or former employees of these 
companies to decide policy. I want policy decided on the basis of the 
best science but not science created by these chemical companies, or 
those funded by these chemical companies.
    Further I support the goals of Food Democracy Now! as follows:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                          Comment of Clara Dux
    Date Submitted: Wednesday, April 11, 2012, 5:37 p.m.
    City, State: Winona, MN
    Occupation: Americorp VISTA
    Comment:Beginning Farmer and Rancher Opportunity Act and our Local 
Farms, Food, and Jobs Act

    I support a farm bill that will create jobs and spur economic 
growth through food and farms. I want the farm bill to invest in the 
future of American agriculture and enhance our natural resources and 
improve agricultural productivity. The farm bill especially needs to 
drive innovation for tomorrow's farmers and food entrepreneurs. An 
investment in our young people and encourage a farm to school 
connecting children with food and the world around them.
                                 ______
                                 
                        Comment of Sandy Dvorsky
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: St. Paul, MN
    Occupation: Housewife
    Comment: I grew up in a small farming community in northwest Iowa 
in the 1950s & 1960s when there were almost zero overweight kids. Since 
the 1970s, I've lived in the urban Twin Cities and am the mother of two 
20-something daughters. The rates of obesity in their generation is 
Catastrophic! There are multiple causes to this . . . but cheap, 
processed food is one of the biggest! And the ``cheap'' part links back 
to what we subsidize in the farm bills. Stop This. Be wise . . . for 
the health of everyone (not the health of the corporate pocketbooks 
which is killing us physically And financially in health care costs).
    I support, completely, all provisions of the Local Foods, Farms & 
Jobs Act (H.R. 3286). America desperately needs FULL funding of 
conservation programs, such as the Conservation Stewardship Program, 
plus making sure that enrollment in any new insurance subsidies are 
tied directly to compliance with conservation programs. I support the 
implementation of all provisions of H.R. 3236 (the Beginning Farmer & 
Rancher Opportunity Act). And I especially support maintenance of the 
EQIP Organic Initiative.
    You, on the Agriculture Committee, have a direct responsibility for 
wise decisions here and these provisions that I support are supportive 
of my kids And Your Kids' future. Please rank them higher than 
corporate lobbyists. Thank you.
                                 ______
                                 
                        Comment of Ryan Dybdahl
    Date Submitted: Saturday, May 19, 2012, 7:52 p.m.
    City, State: Ann Arbor, MI
    Occupation: Social Work
    Comment: Small farms are critical in fostering locally grown and 
locally consumed fresh foods. They also have become a growing area of 
job creation. They build our communities and ensure we get the best 
foods, picked at their prime. Please protect and promote small farms 
and especially organic farms in the upcoming farm bill.
                                 ______
                                 
                         Comment of Donna Dyer
    Date Submitted: Friday, May 18, 2012, 2:38 p.m.
    City, State: Huntington Beach, CA
    Occupation: Mom
    Comment: I urge you to please consider the safety of our children 
and our families as you craft the Farm bill and not assume that big 
agriculture can meet our needs.
    Some of the decisions we're making now around technology, around 
GMOs, around organic farming have long-range implications. DNA 
integrity in particular concerns me since there is so little we know 
and changes in DNA may be irreversible. At minimum, I want disclosure 
if I am subjecting my family to that.
    I support organic farmers and want to be aware of the food I am 
eating. I hope regulations will support small organic farmers, as the 
research shows that is the direction we need to move. If I could grow 
my own food, I would, but that is not practical as a single mom.
    Thank you.
                                 ______
                                 
              Joint Comment of Doug Dyer and Susanne Hesse
    Date Submitted: Friday, May 11, 2012, 5:46 p.m.
    Names: Doug Dyer and Susanne Hesse
    City, State: Alachua, FL.
    Occupation: Massage Therapist.
    Comment: We shop almost exclusively at farmers markets and local 
small family farmers outlets. This is the way farms need to be run, 
producing varieties of produce and grass-fed animals that create 
healthy options.
                                 ______
                                 
                       Comment of Robert W. Dyke
    Date Submitted: Thursday, May 10, 2012, 5:51 p.m.
    City, State: Cumberland, ME
    Occupation: Retired Farmer and Lumberman
    Comment: How are you ever going to create more jobs with farming? 
You can't even get unemployed to work in the fields or farm, you would 
rather pay them unemployment money and let the immigrants flood into 
the country for those jobs, how dare you say you're going to make more 
job thru farming, I was in a area a while back where there was 
thousands of 55 gallon drums with apple juice from South Africa! Even 
said organic on it, what a joke. Going to a American plant for 
bottling, I watched a young fellow at Hannaford's in Warmouth shopping 
and his basket was overflowing with all organic stamps. I never knew 
before that we could grow bananas and fresh strawberries in Feb. in 
Maine. 95 percent of the people don't have a meaning for organic, do 
you without having an aide looking it up? Bet you don't. I have written 
before on this subject without a respond, I suspect I won't hear from 
this also.

Robert W. Dyke.
                                 ______
                                 
                Comment of Dr. William ``Skip'' Dykoski
    Date Submitted: Thursday, May 17, 2012, 4:46 p.m.
    City, State: New Brighton, MN
    Occupation: Engineer
    Comment: Large industrial farms do not need subsidies. We need to 
move away from the petro-chemical pesticide herbicide mentality. Please 
support local small organic farms that keep us healthy.
                                 ______
                                 
                       Comment of Pamela Dykstra
    Date Submitted: Saturday, May 19, 2012, 8:17 a.m.
    City, State: Grand Rapids, MI
    Occupation: School Employee
    Comment: Leave our food alone! Give our small farmers a chance to 
produce a healthy product. Quit pushing them out and giving subsidies 
to big ag who produce unhealthy GMO's laden with pesticides.
                                 ______
                                 
                        Comment of Padma Dyvine
    Date Submitted: Saturday, May 19, 2012, 9:45 a.m.
    City, State: Hurleyville, NY
    Occupation: Registered Nurse
    Comment: Earlier this year more than 30,000 people signed a letter 
calling for an Organic Farm Bill that was an idealized version of what 
a growing number of Americans are beginning to realize: that U.S. food 
and agricultural policy must focus on adopting best agricultural 
practices that put the health of its citizens, the land and the 
livelihood of farmers and farm workers over the interests of industrial 
agriculture lobbyists.
    Unfortunately, we as a nation are not there yet. Not only are our 
politicians out of touch with the values of the American people, but 
corporate agribusiness has a stranglehold on our regulatory system and 
our political leaders.
    But with your help, we can change that.
    Farmers and eaters across the U.S. benefit from a fair and healthy 
farm bill. We need your help today.
    As usual, there are a lot of bad ideas that Congress is 
considering, including cutting funding to vital programs such as 
nutrition, conservation and support for organic and sustainable 
agriculture.
    We can't let that happen!
    It's time for real reform.
    I support:

  <bullet> full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Reports from Washington, D.C. about the farm bill negotiations have 
not been pretty. According to an editorial in the San Francisco 
Chronicle by Environmental Working Group's Ken Cook and Kari 
Hamerschlag, Republicans in the House Agricultural Committee have 
already ``voted to slash $33 billion from the food stamp program while 
leaving farm subsidies unscathed.''
    The editorial goes on to report on the latest agribusiness 
boondoggle that gladly steals food from the mouths of the hungry to 
create a ``$33 billion new entitlement program that guarantees the 
income of profitable farm businesses. That's on top of $90 billion in 
subsidies for crop and revenue insurance policies.''
    If this weren't bad enough, the Senate Agricultural Committee has 
already voted to cut $4 million from organic research funding and cut 
funding to support Beginning Farmers in half. We cannot let this stand!
    At the same time, the Senate Ag Committee has voted to get rid of 
wasteful subsidy payments. It has proposed to replace it with a new 
subsidized insurance program that leading sustainable agriculture 
advocates are calling rife with opportunities for fraud and abuse.
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    According to the National Sustainable Agriculture Coalition's Ferd 
Hoefner, ``By failing to place limitations on crop insurance subsidies 
and to re-attach soil erosion and wetland conservation requirements to 
crop insurance programs, the Committee has failed to do the full reform 
that is needed.''
    We can't allow this to happen!
    Thank you for taking my concerns into consideration.
            Sincerely,

Padma Dyvine, R.N., C.H.P.N.
                                 ______
                                 
                        Comment of Iwona Dzialek
    Date Submitted: Friday, May 18, 2012, 2:43 p.m.
    City, State: Chicago, IL
    Occupation: Office Clerk
    Comment: We have right to choose what we put into our mouths. 
People who were chosen by others to represent them have 
responsibilities and have to have courage to go against corporation 
greed. So stop seeing Americans as sheep and start to treat with 
respect and as humans. We need Organic Food.
                                 ______
                                 
                        Comments of Claudia Eads
    Date Submitted: Wednesday, May 09, 2012, 2:42 p.m.
    City, State: Fawnskin, CA
    Occupation: Retired Physician
    Comment: Please protect moneys for food supplementation for seniors 
and kids (e.g., food stamps). How about limitations on what foods can 
be purchased with food stamps to healthy ones?
    Date Submitted: Sunday, May 20, 2012, 7:28 p.m.
    Comment: Farm bill needs vast overhaul, favoring small, also 
organic, farmers, all GMO should be labeled. How about canceling 
subsidies for corn/ethanol?
                                 ______
                                 
                         Comment of John Earnst
    Date Submitted: Friday, May 18, 2012, 1:38 p.m.
    City, State: Longmont, CO
    Occupation: Retired
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I am completely against the actions of the committee to cut the 
food stamp program while leaving intact agricultural subsidies for 
wealthy and profitable agribusinesses. This is morally wrong and a 
shame on the Congress.
    A ``$33 billion new entitlement program that guarantees the income 
of profitable farm businesses, and that's on top of $90 billion in 
subsidies for crop and revenue insurance policies.'' How can the 
Congress be so callous as to take food from the mouths of the poor and 
lard on these billions of dollars to well off farming enterprises. The 
answer is that the poor have no lobbyists or the ability to contribute 
to your reelection campaigns while agribusiness has plenty of lobbyists 
and money to represent their interests. Its a disgrace and you should 
be ashamed of your actions.

John Earnst.
                                 ______
                                 
                         Comment of Faye Easley
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: Burbank, CA
    Occupation: Sales
    Comment: The FDA & USDA and our gov't have supported Monsanto & Dow 
in their attacks against farmers (who feed this nation & continue to do 
so without poisoning us!) Our gov't needs to support the farmers Now 
and get rid of all the GMO crops that are ruining our soil & foods with 
poisonous pesticides! Perhaps the gov't & Monsanto will get the hint 
when CA votes to Label GMOs in November--nobody wants to eat that 
poison. Support our farmers that grow real, healthy food and quit 
backing monster Monsanto!
                                 ______
                                 
                         Comment of Anne Easter
    Date Submitted: Saturday, May 19, 2012, 3:13 p.m.
    City, State: Prescott, AZ
    Occupation: Office Worker
    Comment: I want you to support healthy agriculture, and stop 
subsidies to giant food conglomerates. Create a farm bill that really 
supports all farmers/growers, not just the few that put money in your 
pockets. Thank you.
                                 ______
                                 
                      Comment of Cynthia Easterday
    Date Submitted: Friday, May 18, 2012, 1:37 p.m.
    City, State: Birmingham, AL
    Occupation: Retired
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I believe our direction is skewed and that we need to move away 
from subsidizing large farm industry, supporting agribusiness 
development and any legislation that is influenced by their lobbyists 
that allow loopholes to further develop big business while undermining 
small farmers and conservation minded citizens.
    Thank you, Congresswoman Sewell, for your support.
                                 ______
                                 
                         Comment of Darla Eaton
    Date Submitted: Sunday, May 20, 2012, 9:52 a.m.
    City, State: Spokane, WA
    Occupation: Teacher
    Comment: Please reconsider business as usual in the upcoming farm 
bill. The CFO subsidy is not responsive to real conservation and 
stewardship. It is with sadness that I see obesity in children--and it 
is with sadness that I watch us subsidizing it as if the two are 
unrelated. We need subsidies to farmers, not Big Ag.
    Thanks.
                                 ______
                                 
                         Comment of Edna Eaton
    Date Submitted: Friday, May 18, 2012, 10:49 a.m.
    City, State: Sidney, IA
    Occupation: Nurse
    Comment: The farmers are making more money on their crops that 
entitlements should be removed. Farmers are selling most of their corn 
to Ethanol plants that are still being subsidized. Groceries are going 
up because of lack of selling of crops on the market.
                                 ______
                                 
                       Comment of Kathleen Eaton
    Date Submitted: Friday, May 18, 2012, 2:43 p.m.
    City, State: Middletown, DE
    Occupation: Homemaker
    Comment: Take all the Federal money away from the huge commercial 
farms and use it to subsidize family farms. The huge agro-businesses 
don't need it and the family farmers are having to sell of their farms 
because they can't provide for their families.
                                 ______
                                 
                         Comment of Tyler Eaton
    Date Submitted: Tuesday, March 20, 2012, 11:46 a.m.
    City, State: Jay, NY
    Producer/Non-producer: Producer
    Type: Livestock, Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: I would have liked to see the meeting address some small 
scale farming--farms where the owners are the farmers that spend time 
in close proximity to their soil, their animals and their customers and 
community to create a healthy community. The farm bill remains the 
workhorse for big business. I'd like to see it help create health and 
community viability. Streamline agency regulation, ban damaging 
practices--petro-chemical inputs, improper management of waste, 
erosion, all GMO products, or at least make them internalize the costs 
of pollution. Educate folks that you do not need factories to feed our 
population, you need good health land that is well tended and in good 
shape.
            Respectfully.

Tyler Eaton,
Blue Pepper Farm.
                                 ______
                                 
                  Comments of Christian T. Eaton, M.D.
    Date Submitted: Friday, May 18, 2012, 2:00 p.m.
    City, State: Seattle, WA
    Occupation: Doctor
    Comment: Dear Ag Committee,

    I am a doctor, and I see firsthand the effects that nutrition has 
on our health. We, as a country, are going to go bankrupt paying for 
the effects of our diet: obesity, diabetes, heart disease, stroke, high 
blood pressure, and many, many more conditions are directly affected by 
what we eat.
    And what we eat is profoundly influenced by Federal agricultural 
policy.
    The priority for the farm bill should be the Health of the nation, 
followed by the wellbeing of small farmers. Big Ag Business should Not 
have any influence over the farm bill and I urge you all to Ignore all 
the high paid lobbyists who are trying to influence you. The only 
concern for Big Ag is to make money, Your only concern should be the 
Health of the Nation.
    Please, scrap subsidies to corn and soy and to All big ag companies 
in general. Subsidize small, local, organic farms that are committed to 
sustainability and production of healthy food. And please focus on the 
nutrition of our children, through education and healthy school lunches 
. . . and more education.
    We have an obesity epidemic that is killing millions and costing 
the country billions, and it starts in childhood. We must educate and 
provide healthy choices to our children if there is any hope for their 
future.
    This is an imperative if we are going to escape economic and health 
disaster in the coming years.
            Sincerely,

Christian T Eaton, M.D.
    Date Submitted: Friday, May 18, 2012, 2:05 p.m.
    Comment: All congressmen who fail to push for a Health focused farm 
bill will be targeted for removal from office.
            Sincerely,

Christian T Eaton, M.D.
                                 ______
                                 
                        Comment of Kenneth Ebel
    Date Submitted: Sunday, May 20, 2012, 10:01 a.m.
    City, State: Irvine, CA
    Occupation: Professor of Biology
    Comment: I do not understand all the issues involved, but I do 
support organic foods and non-genetically modified foods. I would like 
to see labeled on food packages whether the food is genetically 
modified.
    I would also like to see the small farm interest help in any way 
possible. I would also like to see the public informed on this topic of 
farm subsidies and genetically modified foods so that there can be 
informed decision making by the common voter not just our 
Representatives.
                                 ______
                                 
                       Comments of Martha Eberle
    Date Submitted: Friday, May 18, 2012, 3:06 p.m.
    City, State: Dripping Springs, TX
    Occupation: Retired
    Comment: I support local farmers and our local food banks that rely 
on them to help. Do not give the majority to Big Ag. Help local 
farmers.
    Date Submitted: May 18, 2012, 6:47 p.m.
    Comment: One very important thing that must be preserved in the 
farm bill, is SNAP. This is an urgent program that benefits those who 
cannot afford good food. We must continue to care for our neighbors, as 
Americans have always done--it's one thing that sets America apart, 
that we care and put that caring into action.
                                 ______
                                 
                       Comment of Matthew Ebright
    Date Submitted: Friday, May 18, 2012, 2:27 p.m.
    City, State: Cupertino, CA
    Occupation: Consultant
    Comment: Please divert agricultural subsidies to programs creating 
the highest good for the American population. Let's reward farmers for 
the highest quality goods, not the highest amount of production. Let's 
support local organic food created with environmentally sustainable 
techniques focusing on conservative water use to support our water. 
resources.
                                 ______
                                 
                        Comment of Alise Echele
    Date Submitted: Tuesday, May 15, 2012, 12:26 p.m.
    City, State: Oxnard, CA
    Occupation: Registered Dietitian
    Comment: Greetings,

    Please vote to fund nutrition programs. Maintaining sources of 
nutrition funding is essential in order to combat food insecurity and 
keep our nation healthy.
            Regards,

Alise.
                                 ______
                                 
                     Comment of Rebecca Echevarria
    Date Submitted: Sunday, May 20, 2012, 10:58 p.m.
    City, State: Pleasantville, NY
    Occupation: Student
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a student in the 
CUNY Baccalaureate Program for Unique and Interdisciplinary Studies in 
New York City studying Environmental Sustainability and Social Justice. 
I began my academic career in sustainable fashion yet after traveling 
and working on several farms and sustainable communities I realized the 
importance of organic food systems and sustainable agriculture methods. 
I have worked on a rooftop farm in Queens where I was able to weed crop 
beds while looking out over the New York City skyline. Sustainable 
agriculture is so important for our society to adopt and encourage. 
Without these food systems, without local farmers, our communities 
suffer. As an aspiring young farmer, I would like to share my support 
for programs that help the next generation of growers build strong farm 
businesses. Since 125,000 farmers will retire in the next 5 years, it 
is imperative that farm bill develop programs to help aspiring young 
farmers, such as myself. I have used Federal programs such as ATTRA to 
find apprenticeships in sustainable agriculture. ATTRA, and resources 
alike, are imperative to farm educators, farm workers, and aspiring 
farmers to connect and share resources. I ask that the Committee 
endorse all of the provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Rebecca Echevarria,
[Redacted],
Pleasantville, NY.
                                 ______
                                 
                       Comment of Cynthia Eckroth
    Date Submitted: Friday, May 18, 2012, 12:51 p.m.
    City, State: Los Lunes, NM
    Occupation: Retired Social Worker
    Comment: Dear Members of the House Committee on Agriculture:

    I support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286) and the implementation of all 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236); maintaining the EQIP Organic Initiative.
    I also support the full funding of conservation programs, such as 
the Conservation Stewardship Program, and that all enrollments in any 
new insurance subsidies are directly tied to compliance with 
conservation programs.
    For too long my government and yours has supplied tax funds to the 
huge farms that use pesticides to grow our food. Congress and other 
government officials say that you want to create jobs and put our 
economy in a situation that is good for the majority of the citizens of 
the U.S. We can do this by giving subsidies to small farmers who grow 
food that does not need to be transported across the country using our 
resources that could be used for other opportunities. People and 
communities do support local farmers and ranchers who grow healthy food 
which is supported in fact by how much the organic and farmers' markets 
have grown in the U.S.
    Please explain to me how each of you can vote to slash $33 billion 
from the food stamp program while not touching the farm subsidies? And 
how can you vote to cut $4 million from the organic research funding 
and cut funding to support Beginning Farmers in \1/2\? What is your 
reasoning for taking money that supports people who are struggling to 
give to people who are getting empowered from my and others' taxes who 
don't care about the public's welfare or health.
    I am a farmer's daughter who grows a garden. Please support our 
small farmers and our organic food industry. Please do not vote just to 
support those individuals and corporations who donate large amounts to 
you individually and to your political party. Please vote as if you 
were concerned for each and every tax payer and voter in your 
districts.
                                 ______
                                 
                       Comment of Marianne Edain
    Date Submitted: Friday, May 18, 2012, 4:37 p.m.
    City, State: Langley, WA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Farm bills until now have more and more benefited enormous 
agribusiness companies which are the antithesis of family farming. The 
corporations abuse the land and the people who work for sub-minimal 
wages on these oversized, toxic chemical dependent operations. And 
congress has rewarded this antisocial behavior by crafting farm bills 
year after year to subsidize them.
    What congress has not done is to support genuine family farms. 
These are small operations, generally with a number of crops, many of 
them using organic and sustainable methods of production. Somehow these 
farms do not qualify for our tax-supported subsidies.
    There is something very wrong with this picture. Giant agribiz 
corporations are a part of the problem. Small family farms are very 
much a part of the solution. Please shift the farm bill to remove 
unnecessary support from already wealthy agribiz corporations and move 
that support to favor small, sustainable family farms.
    A part of that support is ag research at the land grant colleges. 
At present much of that publicly supported research is focused on how 
to increase profits for agribiz. That focus needs to shift to support 
for organic methods of agriculture, to sustainable land use practices, 
and to educational support for young people wanting to get into 
farming.
    It's our taxes you're allocating. Please do so in a way that 
benefits all of us.
                                 ______
                                 
                    Comment of Anna Claire Eddington
    Date Submitted: Tuesday, May 15, 2012, 3:15 p.m.
    City, State: Little Rock, AR
    Occupation: Writer
    Comment: America needs a farm bill that drives innovation for 
tomorrow's farmers and food entrepreneurs--with our growing population, 
we cannot keep creating unhealthy lifestyles and should instead fund 
sustainable agriculture--agriculture that is created by food 
entrepreneurs. Investment in agricultural research is vital to 
continued productivity and innovation in growing and diverse sectors of 
American agriculture, such as organic agriculture.
                                 ______
                                 
                        Comment of Amy Edelstein
    Date Submitted: Friday, May 18, 2012, 3:36 p.m.
    City, State: Portland, OR
    Occupation: Cook/HR Specialist
    Comment: I am disappointed to hear about some of the proposed cuts 
to beneficial farm bill programs. It seems that every time this bill is 
up for debate, the nutrition, conservation, and sustainability programs 
are threatened, while the industrial farming subsidies remain 
untouched. To me, this indicates a greater concern for the Big 
Agriculture corporations and lobbyists than for the health and well-
being of the people.
    I support the following, and I hope that the next farm bill will 
continue to fund them:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Lyn Eric Edgel
    Date Submitted: Saturday, May 19, 2012, 12:23 a.m.
    City, State: Republic, WA
    Producer/Non-producer: Producer
    Type: Forestry, Fruits, Vegetables
    Size: Less than 50 acres
    Comment: Honorable Members of the House Committee on Agriculture,

    The family farm is disappearing because USDA policies and 
procedures are skewed toward agribusiness. Especially vulnerable are 
organic farms. Please consider the health and well-being of our people 
and those who provide wholesome food to us.
    Also, people have a right to know what they are putting in their 
bodies. Please pass legislation requiring the labeling of food as GMO 
or non-GMO.
            Respectfully,

Lyn Eric Edgel.
                                 ______
                                 
                        Comment of Karin Edgett
    Date Submitted: Friday, May 18, 2012, 2:27 p.m.
    City, State: Washington, D.C.
    Occupation: Small Business Development
    Comment: The house bill is killing off the last of our small farms. 
Small farms are sustainable food supplies, sustainable economic 
contributors. By making it impossible to maintain small farms (high 
fees and over regulation), you are forcing Americans into a slow 
decline of factory food that makes us sick, rising healthcare needs, 
and economic failure. Stop the bill or starve the people!
                                 ______
                                 
                        Comment of Evelyn Ediger
    Date Submitted: Friday, May 18, 2012, 3:40 p.m.
    City, State: Omaha, NE
    Occupation: Counselor
    Comment: Healthy food is critical for good health, physically and 
mentally. Chemicals, pesticides, genetically modified seeds/foods all 
create many physical problems. Growing healthy food takes extra care 
and money. I encourage you to give help to these health conscious 
farmers who use methods that don't contaminate our food.
                                 ______
                                 
                      Comment of Michelle Edmonson
    Date Submitted: Saturday, May 19, 2012, 6:31 a.m.
    City, State: Alexandria, VA
    Occupation: Events Coordinator
    Comment: I feel very strongly that organic products are essential. 
They keep my family healthy and I don't have to worry about poisoning 
my children. Taking away funds for research would be detrimental to our 
already unhealthy society.
                                 ______
                                 
                        Comment of Steve Edmunds
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: Berkeley, CA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Agribusiness is destroying small family farming, and 
threatening the safety of this planet. Farm policy should encourage 
small local farming operations that protect the environment.
                                 ______
                                 
                         Comment of Ann Edwards
    Date Submitted: Friday, May 18, 2012, 9:17 a.m.
    City, State: Muncie, IN
    Occupation: IT Consultant
    Comment: I would prefer to be a farmer but can't because the 
barriers to entry are too high. There are many like me that also can't 
break into farming because the cost and other barriers are too high. I 
also live in an area where good, clean food is very hard to find. I 
have an auto-immune disorder that is food-based so good, clean food is 
critical for my well-being yet scarce and limited where I live. Isn't 
it absurd that in this country, where freedom of choice is an oft 
touted right for all citizens, that we cannot grow what we want the way 
we want by whoever wants to grow?
    Please help change this by supporting small farming operations, 
access to healthier foods, and sustainable farming practices.
                                 ______
                                 
                        Comment of Karen Edwards
    Date Submitted: Friday, May 18, 2012, 7:21 p.m.
    City, State: Charlotte, NC
    Occupation: Self-Employed
    Comment: The farm bill has been in need of serious reform for some 
time. Organic farming & the access of Healthy food for All people needs 
to become a priority. I believe in helping small farmers & those who 
need it most, not just those who know how to work the system. I have an 
auto immune disease, & find it hard to ignore the mounting evidence 
that genetically modified foods & pesticides have been boldly linked to 
the cause & worsening of my condition. I am NOT on government 
assistance only because I have been blessed with a supportive family. I 
work when & as much as I am able, but it is rarely enough to afford to 
eat organic. If sustainable & organic farming can be further 
subsidized, it will become more affordable not only for the American 
consumers, but also for the farmers to invest in the infrastructure of 
sustainable, organic agriculture. For our health as a society, 
something must be done!
                                 ______
                                 
                       Comment of Mark V. Edwards
    Date Submitted: Friday, May 18, 2012, 12:09 p.m.
    City, State: Brunswick, GA
    Occupation: Retired RN and PA
    Comment: I have been able to turn my Diabetes around by searching 
out and consuming Free-range chickens and their eggs, Grass-fed Beef, 
and Bison, along with organic vegetables and fruits. Not to leave out, 
No More Sugar or Artificial Sweeteners. This country's health issues 
are a direct result of poor management of our resources and practices, 
and if not resolved will lead to all our demise by way of increased 
health issues overall. Please act responsibly and for the good of the 
public not the corporation. Thank you.
                                 ______
                                 
                      Comment of Barbara Efraimson
    Date Submitted: Friday, May 18, 2012, 7:19 p.m.
    City, State: Waterloo, NY
    Occupation: Telecommunications (Retired)
    Comment: Please back agricultural programs that help elderly, 
children and families who are food insecure, such as SNAP and similar 
programs. Thank you.
                                 ______
                                 
                     Comment of Carol Eichelberger
    Date Submitted: Saturday, May 19, 2012, 3:22 p.m.
    City, State: Coker, AL
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Vegetables
    Size: Less than 50 acres
    Comment: Please don't gut the beginning farmer and organic 
programs. Environmentally sound farming must be in our future. Farm 
subsidies take us back to a model that has failed to give us 
sustainable, local producers.

Carol Eichelberger.
                                 ______
                                 
                        Comment of David Eisbach
    Date Submitted: Friday, May 18, 2012, 11:27 p.m.
    City, State: San Jose, CA
    Occupation: Realtor
    Comment: The influence of big agribusiness is ruinous to the health 
interest of the Citizenry. We should be encouraging the growing of non-
genetically altered crops. Crops organically grown and not imported 
from outside the U.S. We should give support to those growing 
vegetables, pesticide free and ripen naturally. School districts should 
be receiving locally grown produce and we should support that. We need 
to change this system.
                                 ______
                                 
                           Comment of Mira El
    Date Submitted: Saturday, May 19, 2012, 1:02 a.m.
    City, State: Mt. Shasta, CA
    Occupation: Educator
    Comment: We need to support small farmers and organic producers of 
all kinds. We need to make it easy for small dairy farmers to legally 
produce and sell their milk and milk products. Same goes for small meat 
producers. Small and local are the way to go, way more efficient than 
huge operations, and easier on the environment. get with the program!
                                 ______
                                 
                       Comment of Virginia Elandt
    Date Submitted: Thursday, May 17, 2012, 1:16 p.m.
    City, State: Roseburg, OR
    Occupation: Community Organizer
    Comment: Small farms and value-added food enterprise creates jobs 
and feeds rural communities. I urge you to support the food & farm bill 
and provide technical assistance and resources to food producers in our 
nation. The average age of today's farmer is 62, we need to support a 
new generation of farmers and ranchers!
            Thank you,

Virginia.
                                 ______
                                 
                        Comment of Sara Eldridge
    Date Submitted: Thursday, May 17, 2012, 12:10 p.m.
    City, State: Seattle, WA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: Please make sure we have rights to seeds. Please ensure 
water rights for all people. Please forward green energy development. 
Please support soil conservation projects. Please support education for 
farmers. Please support organic farming development. Please do not 
promote genetically altered seeds and crops. Please help promote local, 
family farm development and co-op programs. Crop insurance with global 
warming is critical to farm family survival. Speed up studies of global 
weather patterns and plans for water rights and protection. Thank you.

Sara Eldridge.
                                 ______
                                 
                      Comment of Marlene Elfering
    Date Submitted: Friday, May 18, 2012, 4:10 p.m.
    City, State: Antioch, IL
    Occupation: Accounting
    Comment: I am in full support of family farmers and organic foods. 
I do believe that we are hurting our own bodies by polluting them with 
GMO's. Do you want your kids and grandkids to live a healthy lifestyle 
or do you want them to have unknown pollutants becoming toxic in their 
bodies. I understand that companies like Monsanto want to make money 
and enjoy a level of greed but this greed is at the expense of our 
health and our lives. Once again, I am in full support of family 
farmers and organic foods. Let's promote a healthy lifestyle in this 
county.
                                 ______
                                 
                       Comment of Andrea Elliott
    Date Submitted: Friday, May 18, 2012, 1:01 p.m.
    City, State: Copake, NY
    Occupation: Acupuncturist
    Comment: I want to eat organic and biodynamic food--that is not 
contaminated with GMO crops and Monsanto's chemicals. This is very 
important to me, and I want this choice. Please consider this. I 
believe it is a right.
                                 ______
                                 
                        Comment of Angele Ellis
    Date Submitted: Friday, May 18, 2012, 5:31 p.m.
    City, State: Pittsburgh, PA
    Occupation: Writer/Editor
    Comment: As a super voter citizen and a consumer who prefers 
organic fruits and vegetables, I support America's farmers and 
farmworkers, and ask you to produce a fair farm bill with provisions 
for conservation and sustainable agriculture.
                                 ______
                                 
                         Comment of Cathy Ellis
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: West Chazy, NY
    Occupation: Recreation Therapist
    Comment: Stop supporting big ag and help the farmers who really 
need it--local, organic and sustainable farming. Get tougher on 
regulating growth hormones and genetically modified food and insist 
that food is labeled so that consumers know what they are getting. Our 
government supports big agriculture, which doesn't need the money, 
drives out smaller farmers and cares little for the environment or the 
health of the people buying their food. This is completely wrong.
                                 ______
                                 
                        Comment of Kathryn Ellis
    Date Submitted: Friday, May 18, 2012, 10:55 a.m.
    City, State: Otis Orchards, WA
    Occupation: Disabled Grocery Clerk
    Comment: Stop subsidies for big agribusiness that creates food with 
mountains of waste, tons of pesticides, destroying our land & water. 
Support family farms, regional, organic & sustainable practices. Cap 
crop insurance subsidies. We need more farmers & ranchers less giant 
corporations creating problems.
                                 ______
                                 
                         Comment of Molly Ellis
    Date Submitted: Friday, May 18, 2012, 11:06 a.m.
    City, State: Lake Oswego, OR
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: Please eliminate the subsidies to corn and soy in favor of 
supporting small local sustainable agriculture, those small farms on 
the edge that are the food security for our cities. Please label and 
discourage GMO modified crops.
                                 ______
                                 
                        Comment of Zandra Ellis
    Date Submitted: Friday, May 18, 2012, 1:29 p.m.
    City, State: Desoto, TX
    Occupation: Licensed Chemical Dependency Counselor--Intern
    Comment: Eating healthy, well grown organic food is very important 
to me and my family. The power of the farm and being able to have a 
sustainable farm created a legacy in my family for generations to not 
only be educated, but gave us a connection to the land to truly care 
how our food is grown. Please pass tighter laws to help return the 
power of farming back into the farmers hands and please pass laws that 
will allow individual farms be able to compete with large industrial 
farms.
                                 ______
                                 
                        Comment of James Elmore
    Date Submitted: Friday, May 18, 2012, 2:30 p.m.
    City, State: Riverside, CA
    Occupation: Website Developer
    Comment: What I love is going to the farmers' market or Trader 
Joe's and buying good, wholesome food. I care about organic, I eat 
vegetarian, I get excited making a raw meal. I love gardening, 
volunteer at community gardens, love seed catalogues, grow tomatoes in 
the backyard. Thank you for all your best efforts to ensure that the 
American citizen has access to real, healthy, affordable food 
regardless of where they are in the nation, that they know what they 
are eating. Thank you for farm diversity. I know it must be challenging 
with the monopoly mindset of big business to stick to your desire to be 
of service, but you know what happens at the end of monopoly--one guy 
wins, everyone else loses and the game is then over. Sustainability is 
all about keeping everyone in the game. Thank you.
            Every blessing,

James Elmore.
                                 ______
                                 
                        Comment of Obiora Embry
    Date Submitted: Saturday, May 12, 2012, 5:16 p.m.
    City, State: Lexington, KY
    Comment: I would like to see in the 2012 Farm Bill more support and 
financial funding (grants, subsidies, etc.) for small family farmers 
that grow diverse crops that feed people in their bioregion.
    It should also be used to help keep family farms from being used 
for commercial development and should allow for interested small 
producers to acquire the farm to keep growing food on it.
                                 ______
                                 
                        Comment of Karen Emerson
    Date Submitted: Friday, May 18, 2012, 9:08 p.m.
    City, State: Brandon, VT
    Occupation: Homemaker, Gardener, Beekeeper
    Comment: My husband and I have been gardeners since we were engaged 
40 years ago. We have supported organic and biodynamic agriculture and 
been successful with those methods. The family farmers and small 
organic growers aren't destroying the environment, and they are 
building community with their customers. This model is not fueled by 
big business. The government should move away from funding big special 
interest agricultural companies that pollute and poison the Earth. We 
need to cherish our Earth rather than destroy it and the creatures that 
live on it.
                                 ______
                                 
                        Comment of Heather Emery
    Date Submitted: Friday, May 18, 2012, 2:05 p.m.
    City, State: Bellingham, WA
    Occupation: Teacher, Educational Program Director
    Comment: I write to you in full support the full endorsement of the 
Local Foods, Farms and Jobs Act (H.R. 3286). I urge you to act on 
behalf of your constituency of food producers and food consumers by 
endorsing this urgently needed piece of legislation.
    It is imperative that Congress take immediate action to address the 
crisis of a shortage of opportunities for new farmers who face 
unreasonable hurdles in their quest to become part of the solution 
rather than sit idly by and watch the food system implode. You can do 
so by implementing all provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236)
    I also support the full funding of conservation programs such as 
the Conservation Stewardship Program, and ask that Congress makes sure 
enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs.
    And last, but no means least, I support maintaining the EQIP 
Organic Initiative.
    Please heed this request and the hundreds of thousands like it by 
standing up against the corporate interests of AgriBusiness and 
standing up FOR the community of individuals, families, neighbors, 
People who demand real reform. The people you represent demand a fair 
and healthy farm bill.
    Thank you for your time.
            Sincerely,
    Heather Emery.
                                 ______
                                 
                         Comment of Jason Emery
    Date Submitted: Sunday, May 20, 2012, 2:37 p.m.
    City, State: Punalu'u, HI
    Comment: Farm lands are used by private, and/or business. The 
public eye or hand will rarely (if not never) benefit from land that of 
our state leases. Will the taxes that are paid ever seize the day where 
the vast lands that are leased be equal to the benefits of it being 
leased!
                                 ______
                                 
                       Comment of Wendy Emlinger
    Date Submitted: Saturday, May 19, 2012, 1:58 a.m.
    City, State: El Paso, TX
    Occupation: Librarian
    Comment: Please support organic farms that provide good healthful 
food. I'm extremely sensitive to chemical contaminants and really need 
a safe source of non-petroleum fertilized, pesticide-free foods. 
Perhaps in time we can encourage more farms to go organic and supply 
healthy food at reasonable prices for everyone. Currently I pay more 
for organic because I have to, but the selection is painfully limited.
    Also, I hate to see what's being served for breakfast and lunch in 
our schools. No wonder the kids are plumping up. Don't you know that 
human growth hormone injected into cows so they'll make more milk, 
eventually makes it into the kids? Why do you think girls as young as 9 
are starting their periods prematurely? Evil hormone fairies? Organic 
cattle and milk cows can't be given hormones so none is passed on to 
kids.
    Please, protect our food chain, we're all dependent on it, even 
you.
                                 ______
                                 
                        Comment of David Emrich
    Date Submitted: Friday, May 18, 2012, 3:07 p.m.
    City, State: Talent, OR
    Occupation: Graphic Designer
    Comment: Would you eat the chemicals used in the production of non-
organic food if they were extracted and put on a plate in front of you 
with a nice bottle of wine? I doubt you would, so why are we even 
wasting time arguing about this? Money's one thing, common sense is 
another; sometimes they go together but not in this case.
                                 ______
                                 
                        Comment of Susan Enfield
    Date Submitted: Friday, May 18, 2012, 2:21 p.m.
    City, State: Boulder, CO
    Occupation: Editor
    Comment: Check out this info graphic. Plant the Plate http://
www.ucsusa.org/food_and_agriculture/solutions/big_picture_solutions/
plant-the-plate.html *
---------------------------------------------------------------------------
    *  The information referred to is retained in Committee file.
---------------------------------------------------------------------------
    The irony makes one gag. We are selling the health of our people to 
the highest bidders, and we end up paying again for all the health 
consequences of obesity and illness.
    It's inexcusable, given government's supposed role as a caretaker/
protector of its citizens, at the very least our national finances, 
which are going down the tubes largely due to ballooning health care 
costs.
    Where is our quality of life? In the TV? In a fast food drive 
through or at Wal-Mart?
    Re-learning the joys of fresh foods--and the health one's family 
experiences when they eat that way--is a simple. Low cost, high benefit 
quality of life measure. Americans deserve that much--not to be force-
fed unhealthy foods that are killing us.
                                 ______
                                 
                          Comment of Erica Eng
    Date Submitted: Sunday, May 13, 2012, 1:44 a.m.
    City, State: Reno, NV
    Occupation: Budget Analyst
    Comment: I want to submit my opinion that you do Not cut funding 
for the SNAP program as part of the final farm bill. Also, I do not 
agree overall with the House's budget reconciliation efforts. The 
Budget Control Act was passed for a reason, and I support continuing 
those cuts, not the House coming up with a different plan. I think that 
is Exactly the kind of unnecessary government duplication and lack of 
bipartisan consensus that have many Americans frustrated with Congress. 
And I will remember your decision on this issue prior to your re-
election Mr. Amodei.
    Below is why the message I support from the Food Bank--it is also 
important to note that \1/2\ of all NV gets from SNAP goes to children:

        I am a supporter of the Food Bank of Northern Nevada. Right 
        now, many families in our community are struggling. With 
        increased demand for emergency food assistance, high food and 
        gas prices, and declines in TEFAP commodities--a major source 
        of the food we distribute--our food bank is having difficulty 
        meeting the needs of our community. We need a strong farm bill 
        to make sure that struggling families can put food on the 
        table. I ask that you pass a farm bill that protects and 
        strengthens programs like SNAP, TEFAP, and CSFP. Our community 
        cannot afford cuts to these programs.
                                 ______
                                 
                        Comment of Anna Engdahl
    Date Submitted: Friday, May 11, 2012, 4:54 p.m.
    City, State: Hankins, NY
    Occupation: Retired
    Comment: Farms shouldn't be factories. We need to give more support 
to Family Farms not factory farms. Local sustainable farming is what I 
would like to see. Humane treatment of farm animals produces healthier 
meat, no antibiotics in feed that causes resistant strains of bacteria.
                                 ______
                                 
                         Comment of Lisa Engels
    Date Submitted: Saturday, May 19, 2012, 6:11 a.m.
    City, State: Temecula, CA
    Occupation: Homemaker
    Comment: Please quit subsidizing GMO farming & CAFO's. Our family 
only eats organic produce & proteins. Yes, we eat less due to the 
expense but we are healthier than the average American. Stop wasting 
our tax dollars on bad farming methods. We support organic farming.
                                 ______
                                 
                        Comment of Gail England
    Date Submitted: Friday, May 18, 2012, 3:54 p.m.
    City, State: Phoenix, AZ
    Occupation: Medical Secretary, Homemaker, Care Giver
    Comment: In order for our farmers and eaters to survive and thrive, 
we must have an ``organic farm bill''. Please consider this when voting 
Representative Gosar. Please take into consideration we the people who 
voted you in, live here and must maintain our food crops so we can be 
healthy and thrive.
            Please,
            Sincerely,

Gail England and family.
                                 ______
                                 
                      Comment of Kathleen England
    Date Submitted: Wednesday, May 09, 2012, 3:59 p.m.
    City, State: Elkhorn, NE
    Occupation: Retired RN/Teacher
    Comment: We are such a generous nation--supporting countries and 
people abroad like no other nation in history but while this is 
remarkable, we cannot forget those at home who are less fortunate--our 
children and our seniors. Millions of households, often 
multigenerational, are having to make difficult choices every day about 
how they spend their meager incomes--do they eat or do they buy 
medications? There are many places for low income families to live, not 
always places we would take our families, many places to shop for hand-
me down or used clothes, but very few places where they can get help 
with such necessities as food and medications. Community foodbanks may 
provide some help, but often restrict the amount and choices of 
commodities as they try to serve all who are in need. Are these folks 
any less deserving of our help than the peoples of the world? You and I 
cannot judge why there is need in our state or nation, but we can do 
our best to help by continuing our programs at home to be certain that 
our children, our veterans on the street, and our seniors remain on the 
top of the list of those we help with basic necessities like food, 
medicines, clothing and basic supplies for living. We have the ability 
to do it, we must find the will to do it well and in such a manner that 
they can keep their pride and dignity.
                                 ______
                                 
              Comment of Thomas England, C.E.C., C.F.S.E.
    Date Submitted: Friday, May 18, 2012, 3:24 p.m.
    City, State: Zionsville, IN
    Occupation: Chef Instructor/Local Foods Activist
    Comment: Mr. Burton,

    I have worked with farmers, chefs and consumers over the past 7 
years in Indiana to develop a common language on Indiana produced 
foods. I have been shocked to hear so many row crop farmers talk about 
how they do not have a choice in what they grow. They would love to 
grow more non-traditional crops, but, the government has made that 
impossible with the subsidies. I would love to speak with you further 
about my experiences. Below is information about the farm bill that I 
stand behind:
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.

Chef Thomas England, C.E.C., C.F.S.E.
Ivy Tech Community College.
                                 ______
                                 
                        Comment of Richard Engle
    Date Submitted: Friday, May 18, 2012, 4:48 p.m.
    City, State: Berkeley, CA
    Occupation: Business Owner
    Comment: We have had decades of taxpayer subsidy for crops and 
foods that often poison us and our children or destroy the health of 
our natural world. We need to shift our power and money (both tiny 
compared to Big Ag in the current political system) toward a crop and 
food system that centers on people's health and well being. This can be 
done with your firm stand against vested interests, and with loving 
concern for the people of this district, CA, and the U.S.
            Thank you,

Richard Engle
                                 ______
                                 
                       Comment of Carroll English
    Date Submitted: Thursday, March 22, 2012, 4:53 p.m.
    City, State: Cabery, IL
    Occupation: Retired Teacher
    Comment: To the House Committee on Agriculture:

    I urge you to press for funding of these two Acts? Local Farms, 
Food, And Jobs Act And Beginning Farmer And Rancer Opportunity Act. To 
not re-fund and amplify funding for these two acts is to condemn our 
country to increased disaster! What future could there be in farming if 
these aren't re-energized!
    These acts are so needed to further protect our air, water, and 
soil, while at the same time, keeping local farmers operational. 
Agribiz has demonstrated how dangerous those operations are to public 
health. (The big infections start in agribiz operations--not in local 
food production!) Please find some will within yourselves to do 
Something valuable for the nation at large! Thanks you!
    Why do you demand to know our total address, etc.? The days have 
come when it is intimidating to reveal all of our personal information 
before the government!

CE.
                                 ______
                                 
                       Comment of Doris Engstrom
    Date Submitted: Wednesday, May 09, 2012, 9:33 a.m.
    City, State: Orlando, FL
    Occupation: Retired
    Comment: Our church is trying to meet the needs of the hungry in 
our area but the numbers continue to escalate. We count on the TEFAP 
foods to help fill the bags we pack. Without them, there would be a 
goodly number of elderly and children who would not have food.
    May I respectfully suggest that you hold the line in your 
Committee. You are directly dealing with peoples' basic needs. I would 
further suggest that instead of continuing to look for cuts from those 
who desperately need our help, that you seriously ask those who have so 
much to share. Do we need to balance the budget and bring down the 
deficit, yes, but search your souls and consider what is really right. 
I really must ask . . . why, since the tax cuts are in place, do we 
have a jobs issue? Aren't the tax cuts hyped as going to correct all 
that? Since we have the tax cuts in place, why haven't they created 
jobs and why would the next round work any better.
    Please do not short change TEFAP.

Doris Engstrom.
                                 ______
                                 
                        Comment of Suzanne Enser
    Date Submitted: Saturday, May 19, 2012, 8:42 p.m.
    City, State: Braintree, VT
    Occupation: Conservation Biologist/Mother
    Comment: Farm bill actions should support local farmers, honest 
conservation in action and real healthy food production.
    Govt. dollars should not support big ag/big money; nor should it 
support Monsanto.
    The farm bill should be about providing real food to real people.
                                 ______
                                 
                        Comment of Diane Ensign
    Date Submitted: Friday, May 18, 2012, 9:48 p.m.
    City, State: Tucson, AZ
    Occupation: Disabled Pro Photographer
    Comment: It is essential that we protect our small farmers & our 
organic farmers. We need their diversity. I am outraged at the huge 
factory farms getting the subsidies when they torture the animals in 
horrid cages & totally unnatural conditions. It's so shameful. And such 
crowded conditions produce filth, stress, and disease all for profit 
only. Smaller farmers are much better caretakers of our health, their 
livestock & plants, & the Earth used for their product. They need help 
& we citizens (who have any cares about our own health & that of the 
livestock need them).

Diane Ensign.
                                 ______
                                 
                      Comment of Narcissa Enzmann
    Date Submitted: Friday, May 18, 2012, 3:13 p.m.
    City, State: Whittier, CA
    Occupation: Registered Dietitian
    Comment: We need to reform the farm subsidy program, allow farmers 
to grow real food such as fruits and vegetable with the infrastructure 
to produce those foods. We need to put the health of our country ahead 
of corporate profits and say no more to Genetically Modified Organisms 
(GMO's) with have built-in chelating agents (that do not allow for 
vitamin and mineral absorption) and pesticides(Scott's Round-Up).
                                 ______
                                 
                      Comment of Svetlana Epshteyn
    Date Submitted: Sunday, May 20, 2012, 1:19 a.m.
    City, State: Palmdale, CA
    Occupation: Music Teacher
    Comment: The consumers would like to have food that has all 
ingredients listed, that is organic and that supports soil conservation 
and not soil destruction. We want to have more small family farms, 
which we could trust and not some huge agricultural company which only 
has interest in their profits. Please, consider the best from other 
countries and not make this nation weaker because it consumes 
chemically poisonous food.
                                 ______
                                 
                         Comment of Nadia Eran
    Date Submitted: Friday, May 18, 2012, 9:41 a.m.
    City, State: Richmond, VA
    Occupation: Clinical Research Associate
    Comment: Please stop supporting factory farming and obesity in this 
country by subsiding corn and soy. It makes junk food cheaper than real 
food and promotes factory farming by creating a cheap food product to 
feed animals. Please support small farms, reward organic local farm to 
family plans, and take a stand against the lobbyist and investment 
interests of the dairy and meat and factory farming groups because even 
though it generates cheap money, it is diluting the quality of life in 
this country. Healthcare is going up, health is declining, and 
Americans are looking worse than ever; \2/3\ of adults are obese and 
\1/3\ of children are obese--these are dangerous statistics and you 
have an obligation and a responsibility to do what's right, and not 
fold to money and politically generated interests. Thank you.
                                 ______
                                 
                        Comment of Julian Erceg
    Date Submitted: Friday, May 18, 2012, 3:57 p.m.
    City, State: Spring, TX
    Occupation: Train Dispatcher
    Comment: It is time to change agricultural policy in this country. 
Rather than the select few profiting at the overall expense of most, we 
can redesign our agricultural industry to raise the standard of living 
for most people and improve the health and environment of the country. 
The health epidemics in this country of obesity and diabetes and the 
decline of real rural America is enough evidence that we need a new and 
better way under which all will benefit.
                                 ______
                                 
                          Comment of Dave Ergo
    Date Submitted: Friday, May 18, 2012, 8:19 p.m.
    City, State: Cotati, CA
    Occupation: Financial Manager
    Comment: For too long the farm bill has been unduly influenced by 
Big Ag, and we end up subsidizing food that in the long run is 
unhealthy for our population. Please reform the policies of our farm 
bill so that it serves the interests of the population, not the 
interests of corporations.
                                 ______
                                 
                     Comment of Christine Erickson
    Date Submitted: Friday, May 18, 2012, 12:20 p.m.
    City, State: Ann Arbor, MI
    Occupation: Retired
    Comment: I would like a new farm bill to concentrate on helping the 
small family farm, instead of the ``factory farm''. Factory farming 
practices are ruining the small farmer, ruining the environment and 
producing a low-quality end product. Save The Small Farms Please!
                                 ______
                                 
                        Comment of Sara Erickson
    Date Submitted: Sunday, May 20, 2012, 8:45 p.m.
    City, State: Corona Del Mar, CA
    Occupation: Researcher
    Comment: Dear Committee,

    I would like you to please consider the following items:Please 
support family famers and limit subsidies to commodities. Please keep 
the nutrition of our children as a top priority as this is where we 
will see the greatest return on our investment. No child in America 
should be hungry. Children need ``real'', nutritious food including 
fruits and vegetables for their development.
    Please limit funds to CAFOs and institutions that are damaging our 
health through environmental pollution.
    Thank you,

Sara Erickson.
                                 ______
                                 
                        Comment of Joan Erlanger
    Date Submitted: Saturday, May 19, 2012, 10:51 a.m.
    City, State: Lincoln City, OR
    Occupation: Retired Physical Therapist
    Comment: Please consider maintaining support for organic 
certification and education. Funding for megafarms should be balanced 
by funding for small family farms particularly those engaged in 
sustainable agricultural practices.
                                 ______
                                 
                       Comment of Terri Ernissee
    Date Submitted: Friday, May 18, 2012, 4:27 p.m.
    City, State: Elkton, FL
    Occupation: Graphic Designer
    Comment: I am speaking for many local Floridians as well as 
Americans asking you to please work to turn our food supply around to 
local grown, sustainably harvested as available in all stores to all 
classes of people. The quality of food in America has changed over the 
last 15 years to have no nutritional value and is basically fake. Most 
of everything available actually makes us sick. In addition, so many 
people are unemployed because of the failing economy. I see a win-win 
resolve if there was incentive for locals everywhere to return to local 
farming. This would provide us all with healthier food and solve many 
employment problems. I am asking you to fight to change this so that 
local grown can become common-place and so we can all get back to 
basics again.
                                 ______
                                 
                           Comment of Ivy Ero
    Date Submitted: Friday, May 18, 2012, 11:18 a.m.
    City, State: White Oak, PA
    Occupation: Education Director
    Comment: I ask that you pass the farm bill and do so with an 
increase in funds. Providing food for our families in need cannot be 
done effectively without the help of the Federal, state and local 
government.
    Remember our children who go without the quantity of food they need 
on a daily basis to grow healthy and strong.
                                 ______
                                 
                     Comment of Arthur Eschenlauer
    Date Submitted: Sunday, April 29, 2012, 8:07 p.m.
    City, State: Circle Pines, MN
    Occupation: Software Developer
    Comment: Congress should continually strive to streamline and 
strengthen the SNAP and TEFAP programs so that all eligible households 
can receive help without undue administrative red tape. 2010 census 
data show that 150 million of our people are poor or in poverty \1\ * 
because of unemployment, underemployment, or minimal compensation. From 
personal experience (past experience, thankfully), I know what it is 
like to be willing and able to work, with great skills, but to be 
looking for work month after month; the issue for the poor is not 
laziness or lack of accountability, it is lack of opportunity, lack of 
income, and sometimes bad luck.
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
    \1\ Yen, Hope, Census shows 1 in 2 people are poor or low-income, 
http://finance.yahoo.com/news/census-shows-1-2-people-103940568.html
      ``Squeezed by rising living costs, a record number of Americans--
nearly 1 in 2--have fallen into poverty or are scraping by on earnings 
that classify them as low income. . . . Many formerly middle-class 
Americans are dropping below the low-income threshold--roughly $45,000 
for a family of four--because of pay cuts, a forced reduction of work 
hours or a spouse losing a job.''
---------------------------------------------------------------------------
    It is a popular misconception that higher taxes discourage growth 
and, hence, investment and job creation. However, what discourages 
investment is the impression that it won't give good returns. People 
expect good returns and will invest when growth is high; since World 
War II, periods of growth in fact were higher when taxes were 
high.\2\<SUP>-</SUP>\3\ * When people are healthy and can buy what they 
need to survive, their spending drives growth, which in turn gives 
investors the impression that they can profit, driving them to invest. 
Thus, wisely spent taxes actually encourage (albeit indirectly) 
investment and job creation.
---------------------------------------------------------------------------
    \2\ Linden, Michael, The Myth of the Lower Marginal Tax Rates, 
http://www.americanprogress.org/issues/2011/06/marginal--tax--
charticle.html
      ``The central tenet of modern conservative economics is that a 
lower top marginal tax rate will result in more growth, and these 
numbers do show conclusively that history has not been kind to that 
theory.''
    \3\ Reich, Robert, Why we would benefit from higher taxes on the 
rich, http://www.kansascity.com/2012/04/17/3560804/robert-reich-why-
wed-benefit-from.html
      ``Taxes were far higher on top incomes in the 3 decades after 
World War II than they've been since. The top marginal rate was over 70 
percent. Even after deductions and credits, rich Americans paid an 
effective tax rate of over 50 percent. And the distribution of income 
was far more equal than it has been since. Yet the American economy 
grew faster in those years than it's grown since Ronald Reagan slashed 
tax rates on top earners in 1981. This wasn't a post-war aberration. 
Bill Clinton raised taxes on the wealthy in the 1990s, and the economy 
produced faster job growth and higher wages than it did after George W. 
Bush cut taxes on the rich in his first term.''
      Editor's note: the above referenced link is no longer available.
---------------------------------------------------------------------------
    It is unconscionable that we would let adults or children suffer 
inadequate nutrition as a result of budget cuts; please recall that 
malnutrition has life-lasting physiological effects on a developing 
child's brain and body. The root cause of our debt problem is not that 
we have spent too much on so-called ``entitlement programs''; rather, 
our recent trillion-dollar wars in Afghanistan and Iraq were paid for 
by borrowing instead of taxes.\4\ * It is very unfair to ask those who 
literally do not have enough to eat to make sacrifices to reduce or 
service this debt that we chose to incur by choosing not to raise taxes 
to pay for armed conflict.
---------------------------------------------------------------------------
    \4\ Bartlett, Bruce, The Cost of War, http://www.forbes.com/2009/
11/25/shared-sacrifice-war-taxes-opinions-columnists-bruce-
bartlett.html
      ``George W. Bush initiated two major wars in Iraq and 
Afghanistan, but adamantly refused to pay for either of them by cutting 
non-military spending or raising taxes. . . . In 1950 and 1951 Congress 
increased taxes by close to 4% of GDP to pay for the Korean War, even 
though the high World War II tax rates were still largely in effect. In 
1968, a 10% surtax was imposed to pay for the Vietnam War, which raised 
revenue by about 1% of GDP.''
---------------------------------------------------------------------------
    If budget cuts must be made, they should not be made on the backs 
of the poor. Indeed, it is more likely that improving the lot of the 
poor will bring us out of economic stagnation sooner. But a better 
reason for helping the poor is that our nation and its government is 
bound to put Micah 6:8 into practice, ``And, what does the Lord require 
of you? To act justly, and to love mercy and to walk humbly with your 
God.''
                                 ______
                                 
                       Comment of Ronald Esquerra
    Date Submitted: Friday, May 18, 2012, 11:46 p.m.
    City, State: Munising, MI
    Occupation: Gaming Dealer
    Comment: We desperately need a farm policy that focuses on the 
health of the American people. Have the courage to stand against the 
agri-industry leeches like Monsanto and support an organic farm bill.
                                 ______
                                 
    Submitted Statement by Essex County Soil and Water Conservation 
                                District
    New Farm Needs Essex County, New York

    1. Funding for Conservation Technical Assistance--There is a 
        critical need for funding for staffing especially engineering 
        to address a back log of engineering on farm bill funded 
        projects from the 2008 Farm Bill. Additional resources are 
        needed to get the projects on the ground in a timely manner.

    2. Funding for High Tunnels, Irrigation management and grazing 
        system management to assist new farmers in protecting the Lake 
        Champlain Basin and meet the demands of the local foods market 
        in northern New York.

    3. Funding for forestry practices to keep forestry as a resource 
        management tool and still protect our Lake Champlain watershed. 
        We need to fund additional forestry practices to better manage 
        the vast forestry resource in the Adirondack region and provide 
        economic benefit to the region.

    4. Additional resources for Green Energy to assist in making our 
        energy resources local and protect the Adirondacks from further 
        damage through acid rain by reducing the use of fossil fuels.
                                 ______
                                 
                       Comment of Susan Estrella
    Date Submitted: Friday, May 18, 2012, 11:28 p.m.
    City, State: San Diego, CA
    Occupation: Writer
    Comment: Support organics and more humane farming. Please focus on 
creating a healthier, cleaner and more sustainable environment using 
LESS chemicals and MORE respect for nature. We have all suffered enough 
from dangerous pesticides and fertilizers. They may be profitable, but 
the health costs in the long run are sky high! Mistreating animals in 
the name of profits is also very costly in terms of health and other 
negative repercussions. Thank you for changing the focus to benefit 
humans instead of only making profits for the wealthy corporations.
                                 ______
                                 
                       Comment of Angela Estrello
    Date Submitted: Friday, May 18, 2012, 12:42 p.m.
    City, State: Converse, TX
    Occupation: Oil and Gas Data Analyst
    Comment: Concerns for the next farm bill:

    A couple things I can specifically say I want to see are:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I would like the next farm bill to truly protect family and small 
farms and not cater to large business/agriculture. Help the local 
farmers keep their businesses and be able to prosper. Truly look out 
for their well being and assist them.
    I would like to know that organic and/or sustainable farming and 
Non-GMO farming is going to be a priority in being protected and made 
more cost effective for both farmers and consumers. Whole foods are the 
key to good health and genetically modified foods are not helping our 
country's health at all.
    I would like to know that funding is not going to be cut for 
nutritional programs, conservation programs, organic farming and small/
family farms.
    I would also like to know that Monsanto (or any other corporate/
agricultural giant holds no sway on any decisions made regarding the 
new farm bill. The good of the People needs to be the full focal point 
and not how many pockets are going to be lined from legislation driven 
by self gain from share holders or any other financial beneficiary.
    I want to know that small farms and family farms will not be 
allowed to be bullied by Any government entity or corporate giant.
    I want to know that family owned and small farms will be protected 
from hasty search and seizure actions and will be afforded their true 
rights . . . no more going in and confiscating live stock and/or crops 
without warning or warrant.
    I want Raw food protected. It is my decision how I want to prepare 
my food. I do not want protectants applied nor do I want anything 
``blanched'' . . . allow me, the consumer, to be responsible for the 
proper preparation of my food. Stop taking away my options for Real, 
Raw food (including all meats, fruits, veggies, nuts, seeds, dairy, 
eggs, etc.). Stop encouraging the production of ``super foods'' with 
genetic modification . . . and allow me to decide if I want GMO, 
standard or organic products by requiring them to ALL be labeled 
appropriately (especially GMOs . . . this needs to be Clearly displayed 
on All GMO foods).
    Please, do what is right for the People not corporate pockets. 
Protect the little people from the giants who truly do not have their 
best interest in mind. Put yourself in the position of a farmer and 
truly think of what would help you the most . . . what would help your 
family most . . . what would ensure the future of your farm . . . and 
what would be most beneficial to any who would consume your product. I 
do not want frankenfood and I do not want any farm to have to sell out 
in order to stay in business. Stop taking Monsanto's side . . . this 
company is slowly killing our health and our way of life.
                                 ______
                                 
                        Comment of Leilani Etter
    Date Submitted: Saturday, May 19, 2012, 9:03 a.m.
    City, State: Kalispell, MT
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Please stop the continuing support of huge industrial 
agribusiness, instead approve continued support of organic research, 
small farms and community gardens.
                                 ______
                                 
                 Comment of Stephanie Ettinger de Cuba
    Date Submitted: Friday, May 18, 2012, 4:03 p.m.
    City, State: Boston, MA
    Occupation: Researcher: Health and Nutrition, Children's 
HealthWatch
    Comment: Dear Members of the House Committee on Agriculture,

    In response to the opportunity to submit feedback on the farm bill 
via the House Committee on Agriculture's website, we, as pediatricians 
and public health researchers with Children's HealthWatch, are writing 
to express our deep concern about the cuts to SNAP passed in the recent 
House budget bill, their impact on the farm bill and ultimately the 
implications for the health of children and families across the nation. 
Children cannot eat retroactively--if we do not nourish them in the 
right biological timeframe, opportunities for the full potential of 
brain and body development are lost. SNAP is an essential public health 
program and must be strengthened and protected so that it can ensure 
that families in need have enough to eat.
The SNAP Vaccine: Boosting Children's Health
    In February of this year Children's HealthWatch published a report 
called The SNAP Vaccine: Boosting Children's Health * in which we 
demonstrated the positive impact that the receipt of SNAP has on 
children's health and development.
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
    The report can be found at: http://www.childrenshealthwatch.org/
upload/resource/snapvaccine_report_feb12.jpg.pdf.
    Specifically we found that, compared to children whose families 
were likely eligible for but did not receive SNAP, children whose 
families received SNAP were significantly less likely to be at risk of 
developmental delays and less likely to be underweight (a sign of 
under-nutrition). Children whose families receive SNAP were also more 
likely to live in food secure households and to be child food secure. 
In other words, their families were more likely to be able to afford 
enough food for the whole household.
    Food insecurity's harmful effects on young children's health have 
been well documented--compared to similar children in food-secure 
households, food insecure children are: 90% more likely of having their 
health reported as ``fair/poor'', 31% more likely to have been 
hospitalized since birth, 140% more likely to experience iron 
deficiency anemia and 66% more likely to be at developmental risk . 
Given this, Children's HealthWatch research results demonstrate SNAP's 
protective effect and important role as a health program.
    While Children's HealthWatch focuses our research on young 
children, food insecurity's effect is felt by children of all ages. 
Food security has negative influence on school-age children's physical 
and mental health and academic achievement. As doctors, we know that 
treating vulnerable children with a preventative food ``vaccine'', 
protects families and is a common-sense, cost-effective intervention. 
The economic cost of ill health is large, for example, pediatric 
hospitalizations cost an average of $6,000 per visit. Kids with 
developmental delays are more likely to need special education; special 
education costs twice what taxpayers pay for regular public education. 
Using a conservative estimate of costs from FY 2001, special education 
can cost an additional $72,000 per child over the course of twelve 
years of schooling.
SNAP Is a Good Vaccine--Dose Is Too Low
    SNAP is a good vaccine for protecting children's health, but the 
dose is too low to buy the nutrient-rich foods that help children and 
families stay healthy. In 2009 the American Recovery and Reinvestment 
Act (ARRA) increased SNAP benefits by a minimum of 13.6 percent, the 
equivalent of $80 per month for a family of four. Children's 
HealthWatch research showed that after the ARRA increase, children in 
families receiving SNAP were more likely to be classified as `well' 
than those children whose families were likely eligible for but not 
receiving SNAP.
    The importance of the benefit level is supported by other research. 
For instance, a recent study by Jilcott and colleagues demonstrated 
that women whose families received more than $150 in SNAP benefits per 
household member had lower BMIs than those who received less than $150 
per household member. This indicates that individuals with higher 
benefit levels are more able to purchase healthy food throughout the 
month--thus buffering women from food insecurity's negative health 
effects.
    Moreover, as one of the four national food plans set forth by the 
USDA, the Thrifty Food Plan serves as the basis for the maximum SNAP 
allotment, although it never was intended to be used as a plan for 
long-term consumption. In 2008, Children's HealthWatch examined the 
affordability and accessibility of items on the Thrifty Food Plan in 
four low-income Boston and Philadelphia neighborhoods. While SNAP is 
intended to be a supplemental nutrition program, for those families 
receiving the maximum benefit, SNAP is acknowledged to be the primary 
source of money for food. Therefore we used the maximum benefit as the 
basis for our cost assessment.
    On average, the maximum SNAP benefit for a family of four fell 
short by $196 per month, or $2,352 per year--an amount no family 
receiving the maximum benefit (by definition, these are the families 
with the fewest resources) could ever hope to afford. The ARRA benefit 
increase took a significant positive step, narrowing this gap by $67 
per month in Philadelphia; however, a substantial gap of $129 per month 
remains.
Current Proposals Put the Health, Development and Future Potential of 
        Children in Jeopardy
    We wrote to you in February 2012 to inform you of our research 
findings and warn of the severe harm that will come to SNAP 
participants, especially families with young children, if cuts and 
changes go into effect. That letter can be accessed at: http://
www.childrenshealthwatch.org/upload/resource/
houseagcommltr_heateat_feb12.pdf.*
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
    As health researchers and professionals, we feel it is crucial that 
the basic needs of America's next generation of leaders are met so they 
can develop to their full potential and contribute to the workforce of 
tomorrow. We must act now to ensure that we invest in our most precious 
natural resource: our children.

    1. SNAP's structure, which causes it automatically to expand with 
        rising need and shrink as the economy improves and families' 
        earnings increase, must remain in place.

    2. Connections with other programs that streamline processes and 
        reach those most in need, such as Heat and Eat, are essential 
        and must be preserved

    3. SNAP benefits must match the cost of healthy food.

    a. The ARRA benefit level improvements must be maintained.

    b. It is time to replace the Thrifty Food Plan with the Low-Cost 
            Food Plan as the basis for the maximum SNAP benefit because 
            the Low-Cost Food Plan is a more accurate reflection of 
            food pricing in struggling urban and rural communities

    Thank you very much for your time and consideration.
            Sincerely,

Justin Pasquariello,
Executive Director, Children's HealthWatch.

    Please contact Stephanie Ettinger de Cuba, Research and Policy 
Director, for further information. [Redacted]
    Children's HealthWatch is a pediatric research center that monitors 
the health and well-being of young children living in low-income 
households. Since 1998, more than 45,000 caregivers of young children 
have been interviewed in primary care clinics and emergency departments 
throughout the country as part of our research. Our research sites are 
in Baltimore, Boston, Little Rock, Minneapolis, and Philadelphia.
                                 ______
                                 
                         Comment of Alvin Evans
    Date Submitted: Tuesday, May 15, 2012, 12:03 p.m.
    City, State: Mantua, NJ
    Occupation: Retired
    Comment: Farm subsidies need to be offered only to small farms, not 
large corporate farms which don't need it and only add to the deficit. 
SNAP must not be cut. The poor and disadvantaged need more help not 
less.
                                 ______
                                 
                        Comment of Dianne Evans
    Date Submitted: Friday, May 18, 2012, 7:56 p.m.
    City, State: Honokaa, HI
    Occupation: Business Owner
    Comment: I am worried about the future of food for my children and 
my grandchildren. No GMOs! No Chemicals including hormones and 
antibiotics should be allowed in our food! Organic--what our 
grandparents called food!
                                 ______
                                 
                        Comment of Jessica Evans
    Date Submitted: Sunday, May 20, 2012, 7:16 p.m.
    City, State: Santa Cruz, CA
    Occupation: Homemaker
    Comment: I am a married mother of two young boys. Our family lives 
in Santa Cruz, CA, where we are blessed to be surrounded by 
agriculture. We see firsthand how the use of pesticides damages the 
health of farmworkers, and we also see firsthand that organic 
agriculture does work and can be cost effective.
    I am writing to tell you that I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    It is time for a farm bill that will really help America, not just 
the pocketbooks of corporate agriculture companies. Thank you for your 
consideration.
            Respectfully,

Jessica Evans.
                                 ______
                                 
                          Comment of Joy Evans
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Birmingham, AL
    Occupation: Registered Nurse
    Comment: Keep it clean and get rid of these pesticides and 
antibiotics that are Killing Us and our Children. I am a nurse at a 
Children's Hospital and a health freak. Children's brain tumors are at 
a astronomical high. Almost always you can trace these poor kids to 
some chemical exposure with most living near farms, cotton fields and 
our absolutely disgusting poisoned food supply . . . The parents are 
the ones also who made me aware of this, they are convinced that these 
chemicals caused the tumors and I am too. You know it too. It is called 
Greed from the FDA on down to our government. How any of the guilty can 
sleep at night is beyond me. Knowing you are harming people all in the 
name of Capital Greed and money!
                                 ______
                                 
                        Comment of Morgan Evans
    Date Submitted: Friday, May 18, 2012, 1:31 p.m.
    City, State: Newville, PA
    Occupation: Webmaster
    Comment: We need to help our family farms, particularly those 
engaged in organic production practices. Too often the large government 
subsidies end up in the hands of the large factory farms, whose primary 
motivation is profit rather than quality healthful food products. 
Please do what's right for my neighbors and other small farmers across 
the country. Thank you.
                                 ______
                                 
                       Comment of Josephine Evatt
    Date Submitted: Thursday, March 22, 2012, 6:48 p.m.
    City, State: Mount Vernon, MO
    Occupation: Retired Nurse
    Comment: How can the Congress blame the poor for losing jobs and 
needing to get food during the recession by cutting food safety 
programs like SNAP and TEFAP. These are in place for a reason and when 
they had to be used during the recession by many people who are not 
normally in need the Congress decides to cut money to the programs? How 
does that make sense. Our food pantry numbers doubled during the 
recession and are just now starting to drop a little. Our small church 
and community cannot pick up the slack without help. Please don't leave 
families without the protection and support these programs provide to 
families.
    The children and elderly that suffer. Keep these programs strong.
                                 ______
                                 
                       Comment of Marilyn Evenson
    Date Submitted: Friday, May 18, 2012, 1:55 p.m.
    City, State: Tacoma, WA
    Occupation: Retired Nurse
    Comment: The farm industry needs to be reformed. Independent 
farmers need help. The huge agribusiness with its factory farms should 
not receive big subsidies. It is animal cruelty at its worst & produces 
unsafe food for people. Non-animal farms should be encouraged. Fruits & 
vegetables & whole grains are the best nutrition for people, not animal 
products. Vast factory farms pollute our already stressed Earth.
    Please help the small farms & not big agribusiness.
    Thank you.
                                 ______
                                 
                        Comment of Beth Everett
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: Scottsbluff, NE
    Producer/Non-producer: Producer
    Type: Field Crops, Greenhouse/nursery, Livestock, Specialty Crops
    Size: 301-500 acres
    Comment: From a Nebraska farm, 492 acres. That is small. We are 
certified organic. We are very careful with our produce. Please do not 
make small farms use the regs as the large ones.
                                 ______
                                 
                         Comment of Ed Everett
    Date Submitted: Friday, May 18, 2012, 9:33 a.m.
    City, State: Somerville, MA
    Occupation: Assistant Manager
    Comment: Instead of subsidizing things like corn, can we offer 
subsidies for healthy foods (leafy greens, etc.)? Also, shouldn't the 
government be more concerned about factory farming, and the conditions 
of these types of establishments? I'd like to know where the food (that 
is most likely) ending up in restaurants and on my plate comes from.
    Thank you.
                                 ______
                                 
                        Comment of Keith Fabing
    Date Submitted: Wednesday, May 09, 2012, 2:40 p.m.
    City, State: Seattle, WA
    Occupation: Senior Citizen
    Comment: Older American's struggles with hunger are often 
invisible. It's too easy for members of Congress to direct expenditure 
of their Political Capital away from addressing how many seniors have 
serious trouble accessing the food and nutrition they need to survive 
and thrive. Often, they are forced to make difficult decisions between 
food, paying for the obscene cost of high profit margin medicines and 
their supplemental health insurance premiums/deductibles/copays, or 
paying their utilities or rent. Don't ever forget--Seniors Vote! And 
they Pay Attention if their congressional representatives safeguard 
this most basic of safety nets or choose to toss seniors under the bus 
hoping that they die early and reduce entitlement costs. We Are 
Watching Very Closely!
    As a nation, we owe a great deal to the generations that helped 
build this country--we simply cannot allow one of our most vulnerable 
populations to suffer in silence any longer.
    Cuts to SNAP (food stamps) would further limit access to the food 
and nutrition programs that millions of older Americans rely on. 
Meanwhile, the Commodity Supplemental Food Program (CSFP), which 
provides monthly boxes of food to low-income seniors, faces its own 
funding threats. These issues matter. What will seniors do if they no 
longer have access to these vital programs? Please Support These Vital 
Safety Net Programs Before Casting Yet Another Vote On Yet Another 
Wasteful And Corrupt White Elephant Military Program That Largely 
Serves To Line The Pockets Of The Usual Cast Of Old Boy Military 
Contractors And Their K Street Lobbyists.
                                 ______
                                 
                        Comment of Laurel Facey
    Date Submitted: Saturday, May 19, 2012, 7:49 a.m.
    City, State: Millers Falls, MA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: 50-150 acres
    Comment: The issue that is of primary importance is food for good 
health. it is not to make farmers or corporations rich. We must have 
clean water and healthy soil, which will depend on getting away from 
toxics of all kinds. Bees in particular need a healthy environment, and 
this should always be the focus. We share this planet with other living 
organisms and we are all interdependent. Poisoning one species 
invariably leading to the demise of others. We must learn to legislate 
for sustainability.
                                 ______
                                 
                         Comment of Brad Fahsel
    Date Submitted: Friday, May 11, 2012, 11:37 a.m.
    City, State: Schenectady, NY
    Occupation: Librarian
    Comment: America needs a farm bill that makes healthy food widely 
available to all Americans--including schoolchildren! We must provide 
flexibility for states to use existing food procurement programs to 
purchase fresh, healthy food from local farmers and ranchers. And 
support small family farms that care about the quality of food that 
ends up on our tables!
                                 ______
                                 
                      Comments of Kathy Fairchild
    Date Submitted: Friday, May 11, 2012 10:35 a.m.
    City, State: Westby, WI
    Occupation: Conservationist/Clerical Worker
    Comment: We must turn the tide with Ag policy. The fact that 
Federal subsidies of commodity crops have our children obese and ill 
while consuming very little ``real'' food should be enough to teach the 
government something. The fat cats at ADM and other corporations must 
be cut off so that resource conservation and healthy agriculture can be 
implemented & expanded.
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    Comment: The farm bill has got to take a turn for the better or we 
are all going to suffer. Please act responsibly and step away from the 
Big Ag driven status quo. We need a new future. Thank you.
                                 ______
                                 
          Joint Comment of Erin Fairweather and Timmy Sperling
    Date Submitted: Sunday, May 20, 2012, 9:15 p.m.
    Names: Erin Fairweather and Timmy Sperling
    City, State: Colorado Springs, CO.
    Occupations: Massage Therapist, Coffee Roaster.
    Comment: Our land is our life. We want our tax dollars to be 
invested in healthy eating & a cleaner environment. Let's be a self-
sustaining country & give the jobs back to the farmers! Let's build our 
country back up From Within beginning with our own sacred agricultural 
land, by using Organic and Non-GMO farming systems, & by putting good 
farmers into a place of high value. Let's feed ourselves & even export 
our goods again! There's no reason everyone in the USA should not be 
eating and have food on their plates.
    ``We the people'' are for eradicating all GMO's completely from our 
food system. GMO's in our crops/foods are an absolute crime against 
humanity and nature. It must be implemented ASAP that all GMO foods be 
labeled as so; it is our right. Let's stop filling our grocery stores 
with hybrids and irradiated vegetation. Let's focus on growing heirloom 
varieties, instilling organic farming practices & replenishing our 
soil. Please clean up our land of that is wrought with pesticide & GMO 
contamination. It is beyond obvious that soil and river contaminations 
have led to rising rates in cancer & disease. It is an element which 
our country was founded on to cherish the land of this incredible North 
America. Please don't make decisions without regarding your very own 
seeds' future--that of your children and grandchildren tenfold.
    Please do not dare limit funding to any farmer who is growing Your 
very food. Please we urge you to represent your people with vigor & 
viability in this matter. Also there is no excuse for there to be any 
delay in changing our system immediately. Push this so that it doesn't 
get stuck in any inexcusable bureaucratic delay.
    ``We the people'' are for an Organic Farm Bill: *
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.

        http://www.nytimes.com/roomfordebate/2012/02/21/the-farm-bill-
        beyond-the-farm/we-need-an-organic-farm-bill
        http://fooddemocracynow.org/blog/2012/feb/25/
        tell_congress_i_want_an_organic_farm_bill/
        ?akid=556.381381.ih0dtO&rd=1&t=9
    ``We the people'' are for a Healthy Food Bill:

        http://www.sfgate.com/cgi-bin/article.cgi?f=/c/a/2012/04/27/
        IN8C1O8LBD.DTL
                                 ______
                                 
                        Comment of Robert Farace
    Date Submitted: Friday, May 18, 2012, 12:26 p.m.
    City, State: Clinton, CT
    Occupation: Editor
    Comment: No doubt you're hearing comments regarding the importance 
of organic and healthy foods, and I agree with those needs and the 
needs to protect our food supply from corporate profit-driven 
manipulation.
    However, I would also like you to consider that healthy, wholesome 
food is truly a part of our healthcare as well. If we stop eating so 
many chemicals and genetically modified foods, maybe we won't have to 
take so many pharmaceuticals and burden the healthcare system in order 
to remedy the results.
    Thanks you.
                                 ______
                                 
                       Comment of Candace Farley
    Date Submitted: Friday, May 18, 2012, 10:43 a.m.
    City, State: Napa, CA
    Occupation: Retired
    Comment: We need small farms to keep families and communities 
better fed with less environmental impact. Please support Healthy 
farming practices and ensure that mass producers do not destroy the 
land OR provide un safe foods by using pesticides that hurt our 
environment and those who consume them. This affects all of us--
including you and your family.
                                 ______
                                 
                      Comment of Eugene S. Farley
    Date Submitted: Wednesday, April 18, 2012, 5:06 p.m.
    City, State: Verona, WI
    Producer/Non-producer: Producer
    Type: Vegetables, Other
    Size: Less than 50 acres
    Comment: Thanks to the USDA support for the training of 
Disadvantaged And Minority Farmers the Farley Center 
(www.farleycenter.org) in partnership with Community Groundworks has 
developed and implemented a very successful Farm Incubator for 
disadvantaged and minority farmers. This program provides these 
individuals onsite education, training and hands on practical 
experience for success in farming. The program prepares new farmers in 
sustainable agricultural practices needed for the production of locally 
grown fresh vegetables for the local market.
    We urge you to continue to fund the very successful programs for 
encouraging, preparing and developing new farmers from population 
groups that usually do not have access to such training and the 
development of the business skills needed to facilitate their continued 
success.
    Thanks for considering continued support of a very successful bill.
            My best to you,

Eugene S. Farley,
Exec. Dir.,
The Farley Center,
[Redacted],
Verona WI,
[Redacted].
                                 ______
                                 
                         Comment of Fran Farmer
    Date Submitted: Friday, May 18, 2012, 4:07 p.m.
    City, State: Ira, TX
    Occupation: Banker
    Comment: I cannot tell you how important it is for our government 
to encourage farmers across the country to produce foods that are 
organic and to control the chemicals that are being used on the foods 
we consume. The health of this country depends on the actions you take. 
Please be responsible as you consider the decisions you make.
                                 ______
                                 
                       Comment of Stu Farnsworth
    Date Submitted: Friday, May 18, 2012, 7:40 p.m.
    City, State: Eagan, MN
    Occupation: Retired
    Comment: Stop the $$$ giveaways to Corporate farms and 
agribusiness! They are poisoning Our World. When we only had family 
farms there were never outbreaks of E. coli and other dangerous farm 
produced diseases. We were able to eat raw eggs and drink milk right 
from the cow. We didn't have overuse of antibiotics or growth hormones. 
Now is the time to Stop the Greed and get back to the grass and nature.
                                 ______
                                 
                        Comment of Alonna Farrar
    Date Submitted: Saturday, May 19, 2012, 4:55 a.m.
    City, State: Vista, CA
    Occupation: Graphic Specialist
    Comment: My husband produces organic mushrooms, not button. We have 
a large garden--organic. We buy what we can't grow from organic 
suppliers. Anything else is poison and will get worse if you let 
Monsanto, Dow, Bayer and any of the other chemical poison producers 
have their way. The American public and animals everywhere are slowly 
and not so slowly being poisoned. GMO crops are failing. We must 
support organic agriculture.
                                 ______
                                 
                       Comment of James Farrelly
    Date Submitted: Friday, May 18, 2012, 11:48 a.m.
    City, State: Hanover, PA
    Occupation: Teacher
    Comment: If we can't count on agribusiness which is both successful 
and healthy for farmers and the nation they feed, we are cooked. Safe, 
green, sustainable applies not only to our energy policy But Also our 
food production from seed to feed to table. Got it?
                                 ______
                                 
                       Comment of Carl Farrington
    Date Submitted: Friday, May 18, 2012, 5:46 p.m.
    City, State: Dublin, CA
    Occupation: Retired
    Comment: The welfare of all Americans and of peoples in other lands 
will be highly dependent on a farm bill that supports good nutrition 
particularly of school children and the indigent, supports soil 
conservation, aids agriculture in Third World countries, and 
drastically reduces subsidies for ethanol, corn, cotton and dairy 
products.
                                 ______
                                 
                        Comment of Patti Farris
    Date Submitted: Thursday, April 19, 2012, 10:46 p.m.
    City, State: Portland, OR
    Occupation: Homemaker
    Comment: I am very concerned about plans to reduce the amount of 
land protected by the Conservation Reserve Program. We don't need more 
GMO's, we don't need more Monsanto dominated, pesticide laden, 
unsustainable agriculture. We need more habitat, more small family 
farms, more pollinators and other wildlife.
                                 ______
                                 
                   Comment of Julie G. Farris, S.N.S.
    Date Submitted: Wednesday, May 16, 2012, 11:53 a.m.
    City, State: Rockwall, TX
    Occupation: School Nutrition Director
    Comment: The farm bill must support the production of healthy 
foods, and their transport to local hubs. Identify and fund ways for 
fresh foods to get to more people. A healthy nation requires healthy 
food.
    The Bill needs to provide funding to support the people of our 
nation most in need of nutritional support--children and elderly--
through continuation of the SNAP and TANF programs, as well as school 
meal programs and Meals on Wheels type of programs.
    And if at all possible, provide guidance for USDA to modify the 
current meal pattern to provide for clarity and efficiency.
    Thank you for this consideration.

Julie G. Farris, S.N.S.
                                 ______
                                 
                    Comment of Patricia Farrow-Bowen
    Date Submitted: Wednesday, May 09, 2012, 7:57 p.m.
    City, State: Stanwood, WA
    Occupation: Retired on SSA Disability
    Comment: We all remember the debacle of the finally passed last 
farm bill. Let's hope to be on the top of the mountain this time 
around. Hunger in America has not been so great in my lifetime and Sr. 
Citizens such as myself and children are so in need. Please do all you 
can to see that the programs that we as well as those who are trying to 
keep food on our tables are well funded.
                                 ______
                                 
                      Comment of Harriet Fasenfest
    Date Submitted: Sunday, May 20, 2012, 11:08 p.m.
    City, State: Portland, OR
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas, The very plain fact is . . . access 
to land (good, affordable, unencumbered land) has always challenged the 
small farmer. Those challenges are written in our agricultural history 
and I doubt anyone involved in crafting the new farm bill is unaware of 
them. Today we have an opportunity to rewrite a bit of that history. We 
can turn back the systems that have favored big commodity farmers and 
``middlemen'' given to exports, and who, along with lobbyist efforts, 
have long directed policy in this country. My hope is that those 
interested in helping the small farmer today will not only offer low 
interest loans for land (or a modern homesteading act), but assist in 
all aspects of production, distribution and market access. Being 
``small'' in an agricultural system designed for ``big'' is more than 
an ideological position. It has very challenging economies of scale 
Continuing to favor the status quo might win the support and approval 
of the status quo but It Will Not allow for a small farming renaissance 
in this country. You know that, I know that, and anyone who is involved 
in agriculture knows that. So please act as if you really want them to 
succeed. I'm quite sure it is not a matter of not knowing what needs to 
be done but having the grit to do it. So please Grit Up!
            Sincerely,

Harriet Fasenfest--Householder.
                                 ______
                                 
                       Comment of Jim Fassanella
    Date Submitted: Saturday, May 19, 2012, 8:29 a.m.
    City, State: Middletown, MD
    Occupation: Liquor Store Mang. Montgomery County Gov.
    Comment: Our government cannot let the big buss. of ag. run ruff 
shod over our rights to have a safe and healthy source of food ava. to 
all citizens. I am an avid gardener and I am appalled at the way that 
the large ag. company's have monopoly. What and variety of plants and 
seeds that are available to purchase. and the way they act like these 
products belong only to them when in reality the belong to our planet 
and we just happen to be living on it. We need to remember that when we 
are busy cow towing to these large ag. buss.
                                 ______
                                 
                        Comment of Barbara Fath
    Date Submitted: Sunday, May 20, 2012, 3:39 p.m.
    City, State: Pleasant Plain, OH
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: The U.S. Congress should support local, sustainable and 
organic agriculture. American consumers have a strong preference for 
this type of product and deserve your support. Thank you.
                                 ______
                                 
                      Comment of Jennifer Faurote
    Date Submitted: Friday, May 18, 2012, 3:18 p.m.
    City, State: High Point, NC
    Occupation: Stay-at-Home-Mom & Green MBA Student
    Comment: It's time to end subsidies for Big Ag, and start investing 
the money into new projects, technologies, and producers that will 
result in healthy and sustainable food and food production. Monsanto, 
Perdue, Con Agra, et al., are only concerned with making money: as our 
elected representatives it is your job to take care of us, the people. 
Helping to ensure that sustainable agriculture practices (organic, 
aquaculture, multi-crop, etc.) become the norm instead of the exception 
will go a long way towards guaranteeing that our future generations 
have healthy, nutritious food and clean water.
                                 ______
                                 
                       Comment of Teresa Fauvell
    Date Submitted: Friday, May 18, 2012, 7:22 p.m.
    City, State: Little Neck, NY
    Occupation: Teacher
    Comment: When will this country stop supporting Big Ag and the 
production of unhealthy food? Can't you see we are killing our planet? 
Can't you further see we are killing our children? I teach in NYC; 
children are overfed and undernourished. Can't you see what's happening 
to our country as a result of bad agricultural policies? Why don't we 
subsidize organic leafy greens and cruciferous vegetables instead of 
genetically modified corn and soy? Wake Up!
                                 ______
                                 
                         Comment of Tracy Favre
    Date Submitted: Sunday, May 20, 2012, 11:48 p.m.
    City, State: Granbury, TX
    Occupation: COO
    Comment: Dear Chairman Lucas,

    I am Chief Operating Officer for a nonprofit whose mission is ``to 
educate people to manage land for a sustainable future''. An important 
part of that future is the Beginning Farmers that are desperately 
needed to replace the current generation of aging farmers! We are 
currently engaged in a multi-state program to train beginning women 
farmers as part of a USDA BFRDP grant. Without the financial support of 
that program, over 300 beginning women farmers in 7 states would not 
have received this vital training in Whole Farm Planning, which has a 
proven track record of helping ensure the success for new farmers. I 
ask that the Committee endorse all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country. 
        Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill. Thank you for the opportunity to submit 
testimony to the House Committee on Agriculture on the next farm bill. 
My district representative is being copied on this testimony.
            Sincerely,

Tracy Favre,
COO,
Holistic Management International.
                                 ______
                                 
                           Comment of Bob Fay
    Date Submitted: Wednesday, May 09, 2012, 2:38 p.m.
    City, State: St. Petersburg, FL
    Occupation: Educator
    Comment:

  <bullet> In 2010, 7.9 percent of households with seniors (2.3 million 
        households) were at risk of starvation;

  <bullet> 30 percent of Feeding America's client households with 
        seniors indicated that they have had to choose between food and 
        medical care and 35 percent have had to choose between food and 
        paying for heat/utilities;

  <bullet> In 2009, nearly 9 million people over the age of 50 and 
        nearly 4 million people over the age of 60 lived in at-risk 
        households.

    We must ensure hunger-relief programs remain protected so that 
seniors who worked their entire lives continue to have access to these 
vital programs.
                                 ______
                                 
                        Comment of Michael Fazzi
    Date Submitted: Wednesday, May 16, 2012, 9:55 a.m.
    City, State: Portland, OR
    Occupation: Sales Representative
    Comment: Please continue to support the SNAP and TEFAP program 
funding. These programs offer food to the needy. In these tough times 
we are only one paycheck from homelessness and funding for SNAP and 
TEFAP may be the only way we can have enough food to feed our families. 
Your support is that important.
                                 ______
                                 
                          Comment of Penny Fee
    Date Submitted: Saturday, May 19, 2012, 8:51 p.m.
    City, State: Sioux City, IA
    Occupation: Retired Teacher
    Comment: It is high time that we passed a farm bill that is not 
supportive of big ag! There needs to be real encouragement for young, 
families to go into sustainable, healthy, humane production of 
livestock and crops. Perhaps there is an opportunity to offer some 
start-up incentives for returning military personnel who would like a 
chance to farm in a healthy family environment, with learning 
assistance on ag basics. Not working in confinement or big ag 
corporations, but a positive ``back to the land'' kind of environment 
that would help returning vets with stress and health issues. There is 
so much good land available for those who are willing to learn to work 
with animals and environment and to make a difference in America's food 
quality.
                                 ______
                                 
                       Comment of Theodor Feibel
    Date Submitted: Saturday, May 19, 2012, 1:38 a.m.
    City, State: New York, NY
    Occupation: Artist/Commercial Photographer
    Comment: Industrial Agricultural Lobbyists do not have as a primary 
concern the optimal mental and physical efficiency of the society's 
human capital. Our `human capital' is all. Without it we have not the 
wit to defend ourselves nor to compete in the economic arena. Being 
carbon based life-forms we depend on our nutrition and freedom of 
toxicity in the environment for our health (mental and physical) as 
well as optimal function. Concerns regarding agricultural processes 
that in evolutionary time scales are very new indeed when compared to 
the age of our biological structure and DNA; is therefore not some `new 
age fad' but a very real National Security concern.
                                 ______
                                 
                        Comment of John Feinberg
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Boulder, CO
    Occupation: Designer/Planner/Architectural Conservator
    Comment: If one knows what is causing the premature death of 
millions of your countrymen, have the power to stop the cause, and do 
nothing about it, Are you not guilty of homicide?
    Stop the plague of type II diabetes, do our utmost for everyone to 
have the knowledge and opportunity to eat right by crafting a best 
practices based farm bill. Thank you.
                                 ______
                                 
                        Comment of John Feissel
    Date Submitted: Friday, May 18, 2012, 4:04 p.m.
    City, State: Philadelphia, PA
    Occupation: Stable Hand
    Comment: With too many reasons to submit, I will simply say it is 
vital that we support small family farms, and organic and sustainable 
methods. These are the best way to ensure the health of our citizens, 
communities, and economy.
                                 ______
                                 
                         Comment of Shela Feldt
    Date Submitted: Sunday, May 20, 2012, 5:52 p.m.
    City, State: Olathe, CO
    Occupation: Retired Self Sustaining Life Stylist
    Comment: We the people need your help in this matter. Do Not allow 
giant commodity farmers and insurance companies to walk away with 
billions in taxpayer dollars!
                                 ______
                                 
                        Comment of Andrew Felger
    Date Submitted: Friday, May 18, 2012, 12:31 p.m.
    City, State: Penobscot, ME
    Occupation: Produce Manager
    Comment: My job is to sell organic produce. My customers want 
organic LOCAL produce. Currently state and Federal rules favor only 
large scale producers. This is not good for my customers, my growers or 
our local food system and economy. Our opinion is that these laws are 
neither fair nor necessary. Local food systems can be sustainable and 
safe. Let us work.
                                 ______
                                 
                         Comment of Lindy Felix
    Date Submitted: Saturday, May 19, 2012, 3:32 p.m.
    City, State: Vesuvius, VA
    Occupation: Holistic Health/Organic Gardner
    Comment: I am hoping for politicians to rise in support of health. 
Real Health, not Monsanto's propagandized bull . . . Please be the ones 
to act with wisdom and fairness and responsibility to your 
constituents.
                                 ______
                                 
                         Comment of Brian Felt
    Date Submitted: Friday, May 18, 2012, 1:48 p.m.
    City, State: Chicago, IL
    Occupation: Sales/Home Design
    Comment: Please fund organic farming and research as much as 
possible! NOT in support of GMOs and Monsanto (aka health and 
agriculture destruction).
                                 ______
                                 
                        Comment of Linda Felter
    Date Submitted: Wednesday, May 09, 2012, 7:21 p.m.
    City, State: Tucson, AZ
    Occupation: Accountant
    Comment: We must balance the budget and quit spending money we do 
not have! If cutting the SNAP program is the only way, then do It to 
cut $36 Billion from our deficit. Open Federal lands and let these 
Legal citizens start farming Federal lands and grow food! Supply them 
seeds and water. I'm tired of Giving the farm away . . . people need to 
have some responsibility for themselves. And get Rid of the Free cell 
phones and the child credit to illegals!
                                 ______
                                 
                        Comment of Susan Felton
    Date Submitted: Friday, May 18, 2012, 8:18 p.m.
    City, State: El Dorado, CA
    Occupation: Registered Nurse
    Comment: I am concerned about government and big agribusiness 
forcing out small family farms, I am opposed to genetically modified 
food and seeds. We should be using our dollars to provide natural, 
safe, local food to all. I don't mean free food, but affordable natural 
foods including humanely raised meat.
                                 ______
                                 
                        Comment of Suzanne Fenn
    Date Submitted: Saturday, May 19, 2012, 6:21 a.m.
    City, State: West Tisbury, MA
    Occupation: Retired
    Comment: We are in our seventies, we have striven to lead healthy 
lives. Fortunately we live in a community where others young and old 
work towards the same goal for themselves and their children, our local 
farmers and growers work hard against great odds. Agribusiness is 
stacked. Against them. We want fresh local food. Government must open 
their eyes to the movement in this country. People who see the health 
of our people getting worse and worse. Senator Keating. I'm sure you 
have been to Europe . . . have you eaten in France . . . Have you 
noticed the flavor in the vegetables and meat? Did you see many 
enormous people? Please take time to read about the local/slow food 
movement in this country and all over the world. If we want to spend 
less on health care we need to support good food not factory food that 
is making us sick and fat. Help the small farmer that needs help not 
the conglomerates that don't. We Don't need corn syrup! And we 
shouldn't be using land to produce stuff to run our automobiles! 
Sometimes I think we have gone mad!
                                 ______
                                 
                       Comment of Chris Ferguson
    Date Submitted: Thursday, May 10, 2012, 9:45 a.m.
    City, State: Atlanta, GA
    Occupation: Work at Nonprofit Organization
    Comment: I do not support any cuts to the SNAP program. SNAP has 
grown in response to the ongoing tough economy, which is what it is 
designed to do. As the economy improves and more people are employed, 
SNAP participants will naturally decrease. In the meantime, SNAP 
benefits are helping to sustain households. 75% of SNAP households 
include a child, elderly person, or disabled person. While there are 
numerous news stories about SNAP fraud and abuse, the actual rate of 
abuse and fraud is extremely low--just ask the Department of 
Agriculture.
            Thanks,

Chris.
                                 ______
                                 
                        Comment of Jim Ferguson
    Date Submitted: Friday, May 18, 2012, 7:27 p.m.
    City, State: Cedar Park, TX
    Occupation: Retired
    Comment: As a supporter of my local food bank, I am writing to 
share my concern about hunger in Texas. With unemployment still high 
and many Americans still struggling to make ends meet, anti-hunger 
programs are helping many of our neighbors just put food on the table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance.
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP), The 
Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP), all of which are authorized in the 
farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 farm bill 
reauthorization.
    Hunger is unacceptable.
    Thank you for your action!
                                 ______
                                 
                       Comment of Gerard Ferrari
    Date Submitted: Friday, May 18, 2012, 5:03 p.m.
    City, State: La Crescent, MN
    Comment:

    1. More subsidization for organic farmers.

    2. Less subsidize for conventional farming.

    3. More regulation of genetically modified farming.

    4. End patents on genetically engineered organisms.

    5. More regulations and conventional farm water runoff, and 
        pollution.

    6. Regulate Monsanto.
                                 ______
                                 
                        Comment of David Ferrell
    Date Submitted: Friday, May 18, 2012, 4:13 p.m.
    City, State: Media, PA
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Fruits, Poultry/poultry products, Specialty 
Crops, Vegetables
    Size: Less than 50 acres
    Comment: I have failed and gone into bankruptcy due to un-ethical 
FSA lending policies. Young farmers like me, particularity practicing 
peri-urban agriculture, or farming on a commercial scale within near 
vicinity of a urban population center, can have a challenging time 
getting long term leases. My land owner, be it a government body--
Middletown township, would not give me a long term lease on the farm 
until I could prove what I could do with it. I couldn't do that without 
financing. All I needed was $5,000 to float the bills and equipment 
rental for field prep before produce was coming in, second season on 
this particular farm. FSA wouldn't lend because I didn't have long term 
lease, and because I had no equity other than my truck and small 
cultivating tractor. I couldn't get long term lease unless I proved my 
production capabilities.
    This chicken and egg scenario will keep crippling Americas new 
young farmers who have no real land or equipment equity. We as a nation 
cannot afford to lose this already narrow sector of people who have the 
skills, knowledge, ability, and desire to feed our communities.
    In my opinion agriculture is the backbone to a prosperous society. 
The Federal government should be throwing buckets of money (loans that 
is) at any lad or lass under 25, regardless of the circumstances, who 
have a serious commitment to agriculture and the well being of Americas 
food supply. You fuckers (please pardon, but no other word will suffice 
here) in Washington cannot afford to screw this up for us.
    We need fair FSA lending policies! If a proposal under $50,000 and 
the farmer is under 25 it should be streamlined approved. Cut down on 
wasteful loans to the top tier corporate entities, whose dollars will 
leave our shores and windup invested in foreign resources.
    Consider this message a re-incarnated mandate from TJ and all our 
other yeoman founding fathers. Put America on the right track . . . the 
only real way to do this is by putting young people back to work, back 
on the land. We need the financing to do this as private banks no 
longer can serve this niche.
    Thank You For Listening.

David Ferrell.
                                 ______
                                 
                    Comment of Donna Ferrier-Johnson
    Date Submitted: Saturday, May 19, 2012, 10:53 a.m.
    City, State: Garland, TX
    Occupation: Teacher
    Comment: Farm subsidies should be discontinued for the very large 
corporate producers who have a monopoly in agribusiness. These 
corporations do not need my tax dollars, but need to have their 
monopolies disrupted. ``Factory farms'' treat animals horribly and 
perpetrate genetically-engineered foods for government funds! I object 
to this egregious use of my hard-earned taxes!
                                 ______
                                 
                         Comment of Kathy Ferro
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: Bricktown, NJ
    Occupation: Housewife/Mother
    Comment: Dear Sir,

    I do not believe in GMO's and I do not want to eat them. If you 
will not stop the production of GMO's then I must request it to be 
labeled on all foods so I the consumer have a right to choose to buy it 
for my family and eat it or not! I feel this is my right for control 
what I eat and what I feed my family!
            Thank you,

Kathy Ferro.
                                 ______
                                 
                     Comment of Suzanne Ferroggiaro
    Date Submitted: Saturday, May 19, 2012, 11:01 a.m.
    City, State: Grass Valley, CA
    Comment: I am writing on behalf of our 12 family voters and 4 
children. We all urge you to insure that U.S. food and agricultural 
policy must focus on adopting best agricultural practices that put the 
health of its citizens, the land and the livelihood of farmers and farm 
workers over the interests of industrial agriculture lobbyists.
    We all support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Rita Ferry
    Date Submitted: Friday, April 27, 2012, 12:52 p.m.
    City, State: Annapolis, MD
    Occupation: Retired Appraiser
    Comment: I volunteer at our community food bank where we gather non 
perishables from the community for over 100 families each month.
    Please do not cut programs which aid poor families as we depend 
upon subsidies to help these families make it and keep their children 
in school and in good health.
                                 ______
                                 
                        Comment of Robin Feusner
    Date Submitted: Friday, May 18, 2012, 12:28 p.m.
    City, State: Jones, OK
    Occupation: Ex-Farm Wife
    Comment: We need get away from all the very toxic chemicals our 
futures depend on it.
    Many of our present ills are because of alk the chemicals in our 
food and WATER. I know the dirty little secrets the chemical co don't 
tell the country.
    I know how the fertilizers are polluting our water resources.
    I know about the steroids in the meat and milk.
    I know about the toxic chemicals used to force crops to produce 
more.
    We need to go back to back yard and small hobby farms for the 
smaller markets. Give people the choice the organics are very expensive 
to produce and that is passed on but with gov't help those expenses 
could be managed better.
                                 ______
                                 
                       Comment of Alicia Fiedler
    Date Submitted: Friday, May 18, 2012, 1:54 p.m.
    City, State: Austin, TX
    Occupation: Stay-at-Home Mother
    Comment: As a mother, and a person who believes strongly that the 
health of our foods effects the health of our environment and the 
overall health of our nation, I would like to see a strong and clear-
headed farm bill that aids the production of organic food, and ends 
subsidies for large agribusinesses. To that end, please fully endorse 
all provisions of the Local Foods, Farms, and Jobs Act. The EQIP 
Organic Initiative should be maintained and all provisions of the 
Beginning Farmer and Rancher Opportunity Act should be implemented. 
There shouldn't be any reduction in funding of food stamp programs 
until all subsidies to massive agribusiness operations have been ended. 
Then you can take food from the mouths of hungry Americans if you must. 
There should be no insurance subsidies that are not tied to compliance 
with conservation and sustainability programs like the Conservation 
Stewardship Program. Our readiness as a nation to face future social 
and environmental disasters will be based on our food security. We need 
to treat this land and soil with great care if we intend to keep 
producing our own food. Otherwise we will find ourselves reliant on 
food hand outs from foreign nations, and our country will no longer be 
free. We will be in the pocket of whomever has the food. Please keep 
the farm bill strong, and free of back room dealings.
                                 ______
                                 
                       Comment of Catherine Field
    Date Submitted: Friday, May 18, 2012, 1:00 p.m.
    City, State: Portland, ME
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: We raise organic low bush blueberries for commercial sale; 
we carry out and support sustainable farming practices which safeguard 
the future of food quality and the health of our communities. We 
support family farms, local small farms, farmland prices affordable to 
young people who want to be farmers, protection of farmland--where else 
will we grow food for this nation?--and the healthy quality of land and 
water for all.
                                 ______
                                 
                      Comment of Robert Fies, M.D.
    Date Submitted: Friday, May 18, 2012, 1:34 p.m.
    City, State: Arroyo Hondo, NM
    Producer/Non-producer: Producer
    Type: Poultry/poultry products, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: Agricultural policy has been controlled by and for large 
agribusiness. As a very small early producer, I ask you to consider 
that our food future lies in returning to small farms who can operate 
within the balance and immense productivity of nature itself. The days 
of massive chemical monoculture with pollution of soil and water are 
numbered. Likewise, powerful chemical herbicides and pesticides are 
producing megaweeds and superpests just as GMO crops of all varieties, 
most poorly or never tested for harmful effects to the environment and 
to human health, are spreading their germplasm to necessary healthy 
organic crops. Please stop protecting big ag whose productivity is 
diminishing and whose harm is rampantly growing. And please stop 
regulating and restricting small farmers. We shall rise again, but only 
if you get off our backs!
                                 ______
                                 
                         Comment of Nancy Fifer
    Date Submitted: Saturday, May 19, 2012, 8:58 a.m.
    City, State: Lewes, DE
    Occupation: Unemployed
    Comment: One of my bumper stickers reads No Farms No Food and at 
the rate things are going, that could happen sooner than we think! I 
only know that if the current rate of farms disappearing continues we 
will be in trouble. If common sense instead of greed is in play, then 
we have a chance! Think of the future!
                                 ______
                                 
                        Comment of Penelope Fink
    Date Submitted: Friday, May 11, 2012, 12:28 p.m.
    City, State: Truckee, CA
    Occupation: Retired Information Technology Manager
    Comment: The new farm bill needs to address the future of 
sustainable farming to provide healthy foods by supporting research 
into sustainable, environmentally sound agriculture, supporting small 
farms, and supporting new and would-be farmers.
                                 ______
                                 
                        Comment of Richard Fink
    Date Submitted: Friday, May 18, 2012, 9:21 a.m.
    City, State: Brookfield, VT
    Occupation: Restaurateur
    Comment: Please do something to limit lawsuits initiated by large 
agribusiness regarding patent infringement on small family farms. The 
rights of corporations end where a family farms nose begins.
                                 ______
                                 
                      Comment of Mary Miho Finley
    Date Submitted: Friday, May 18, 2012, 5:19 p.m.
    City, State: Volcano, HI
    Occupation: Nonprofit Administrator
    Comment: We are so vulnerable here in the middle of the Pacific 
Ocean. Imports make up some 90% of what we eat. Please support farms 
programs to support new, small farmers and family farms. These are the 
types of farms we need to encourage. These are the folks/types of 
producers that will make us safer, make Hawaii more sustainable.
                                 ______
                                 
                    Comments of Barbara Finley-Shea
    Date Submitted: Friday, May 11, 2012, 1:21 p.m.
    City, State: Lyle, MN
    Occupation: Lutheran Pastor
    Comment: The farm bill needs to include adequate funding for food 
assistance programs, food stamps and generous funding for sustainable 
agriculture and conservation programs.
    Subsidies for factory farms, corporate backed agriculture 
operations and subsidies to millionaires need to be stopped completely.
    The U.S. Farm Program needs to support sustainable agriculture, 
conservation and food programs that help needy citizens, especially our 
children.
    Corporations Should Not Be Allowed At The Table When The Farm Bill 
Is Being Discussed And Decided! Get Corporate Interests Out Of The Farm 
Bill!
    Date Submitted: Sunday, May 13, 2012, 1:16 p.m.
    Comment: With the debacle of pink slime fresh in our minds, we want 
and expect a farm bill that:

    (1) will call for truthful, straightforward labeling of what's in 
        our food!

    (2) will provide generous support for conservation programs!

    (3) will provide generous support for sustainable agriculture 
        programs!

    (4) will Stop providing support and tax breaks for industrial 
        factory farm operations!

    (5) eliminate commodity payments to millionaires and non-farmer 
        investors!

    (6) Get Corporate interests out of the room when decisions on the 
        farm bill are being made. Monsanto, Pfizer, Cargill, and other 
        large corporations Do Not Belong At The Table When The Bill Is 
        Being Written!
                                 ______
                                 
                        Comment of Tom Finneran
    Date Submitted: Friday, May 18, 2012, 11:02 p.m.
    City, State: Boulder, CO
    Occupation: Lapidary
    Comment: I am extremely concerned about the proliferation of GMO's, 
and the use of glycophosphates both of which are becoming more and more 
attributable to health and environmental destruction.
    Although scientific studies confirming this are often suppressed or 
ignored the information is getting out, indeed is already available for 
anyone interested to find.
                                 ______
                                 
                       Comment of Vanessa Finney
    Date Submitted: Sunday, May 20, 2012, 8:35 p.m.
    City, State: Fawnskin, CA
    Occupation: Writer
    Comment: Millions of us want the U.S. to ban GM crops or at least 
require the labeling of foods containing their ingredients. Other 
countries have done so. The American public is waking up to the 
shameful practices of those who produce and market genetically modified 
foods. We have also noted the conflicts of interest in Washington--for 
example, see this chart noting the individuals with ties to Monsanto 
AND influence in the government. http://redgreenandblue.org/2012/02/02/
monsanto-employees-in-the-halls-of-government-part-2/.*
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
                                 ______
                                 
                        Comment of Marya Fischel
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Creswell, OR
    Occupation: Retired
    Comment: Please consider your motives when voting on the health of 
all the citizens. Wouldn't you want the Best for your children and 
grandchildren. Why Poison your body and our bodies all in the name of 
corporate profit, greed! Fill your heart and mind with contentment. 
Know that you are making profound wise choices when you vote on these 
Very Important Food Issues. I thank you.
    Love, Peace, Harmony.
                                 ______
                                 
                      Comment of Elizabeth Fischer
    Date Submitted: Friday, May 18, 2012, 3:57 p.m.
    City, State: Ruleville, MS
    Occupation: Teacher
    Comment: It is so hard to get affordable, Fresh produce in 
Ruleville. The grocery store there seems to only get the veggies and 
fruit that fall off the back of the truck. Please make provisions in 
the farm bill that reallocate subsidies from commodity crops to crops 
that are actually consumed by humans!
    Thank you!
                                 ______
                                 
                       Comment of Heather Fischer
    Date Submitted: Saturday, May 19, 2012, 8:47 p.m.
    City, State: Mechanicville, NY
    Occupation: Stay-at-Home Mom
    Comment: Please support local jobs for Saratoga county and beyond 
with the farms bill. Farmers need our help. Consumers need safe, 
organic, local, sustainable food.
                                 ______
                                 
                       Comment of Barbara Fisher
    Date Submitted: Friday, May 18, 2012, 10:45 a.m.
    City, State: Athens, OH
    Occupation: Documentary Filmmaker, Chef, Food Writer
    Comment: In the 2012 Food and Farm Bill, I would like to see 
continued support for supplemental food programs like SNAP, which 
enables the impoverished elderly, families with children, and the 
disabled access not only to food in grocery stores, but fresh food from 
farmer's markets. This is important not only because everyone needs 
food, but fresh produce will help boost the health of the recipients, 
which lowers health care costs, And it helps local economies and local 
farmers pay their bills.
    Please fund programs that help beginning farmers and small farmers 
get started. We need a more sustainable food system that has room for 
both big corporate agriculture and small family farms. Both types of 
agriculture fill a needed niche in our food system, so, please do not 
prefer corporations in agriculture over smaller farmers and beginning 
farmers.
    To this end, please end subsidies (aka direct payments and 
countercyclical commodity programs), and replace them with loophole-
free agriculture risk coverage. Additionally, implement a cap on crop 
insurance premium subsidies.
    Please continue to support environmental and conservation efforts 
in agriculture:
    Limit funds to Concentrated Animal Feeding Operations (CAFOs) for 
animal waste management infrastructure by eliminating the Environmental 
Quality Incentives Program (EQIP) Livestock Set-aside and protect the 
Conservation Stewardship Program (CSP) from disproportionate cuts, and 
improve it by ranking applications solely on their conservation 
benefits.
    Thank you.

Barbara Fisher.
                                 ______
                                 
                        Comment of David Fisher
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Fairfield, IA
    Occupation: Botany Professor
    Comment: Please stop letting agri-corporations impose their 
profits-first agenda on the new farm bill. Instead, maintain and 
increase funding for healthy food, sustainable and organic agriculture, 
conservation, and a reasonable and safe life for farmers. Healthy food 
does not include the aspects of our present food system that have 
resulted in an obesity epidemic, which Big Ag would like only too much 
to see continued.
                                 ______
                                 
                        Comment of Karen Fisher
    Date Submitted: Sunday, May 20, 2012, 10:45 p.m.
    City, State: Oskaloosa, IA
    Occupation: Teacher
    Comment: I believe that the first step toward sustainable 
agriculture is stop the farmer subsidies of corn and soybeans. Moving 
away from industrialized farming practices and using those subsidies 
for farmers that are producing local organic and using sustainable 
farming practices. I live within a few miles of 3 factory farms. My 
family and I cannot enjoy a beautiful summer evening without the stench 
of these factory farmers. The hogs in these confinements live miserable 
lives. It takes only common sense to know that this is a unnatural 
state for an animal and the consequences of eating these pigs has begun 
to take it's toll on humans. On our physical health, our mental health, 
and our spiritual health. This is the real price of a cheap pork chop.
                                 ______
                                 
                        Comment of Melody Fisher
    Date Submitted: Friday, May 18, 2012, 8:09 p.m.
    City, State: Prescott, AZ
    Occupation: Licensed Midwife
    Comment: People have to be able to have the freedom to buy good and 
natural food from their neighbors and friends without restrictions and 
fines! This is one of the backbones of how our country began and 
families met their own needs as well as bartering and getting from 
others what they themselves could not grow.
    Big Corporations have the freedom for too long in processing and 
adding chemicals and artificial ingredients to our food.
    We want to take back our God given right to eat natural, whole 
foods.
                                 ______
                                 
                      Comment of Stephanie Fisher
    Date Submitted: Sunday, May 20, 2012, 11:40 p.m.
    City, State: New York, NY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: 50-150 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a young farmer 
currently engaged in apprenticeships with my partner, Noah Meyer. We're 
learning from farmers across the country so that we can someday return 
to New York State and begin our own farm and dairy. One of the biggest 
challenges for us is securing funding for our future farm, which we 
intend to use as a community building force. We support local farms as 
a way to keep the local economy strong and our food system diverse. I'd 
like to share my support for programs that help the next generation of 
growers build strong farm businesses. As it's estimated that 125,000 
farmers will retire in the next 5 years, it's absolutely critical that 
farm bill programs help citizens get started in this challenging field. 
I ask that the Committee endorse all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country. 
        Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Stephanie Fisher.
                                 ______
                                 
                    Comment of Madeleine Fisher Kern
    Date Submitted: Friday, March 16, 2012, 3:04 p.m.
    City, State: Los Angeles, CA
    Occupation: Writer
    Comment: That our country can't find a way to pass a comprehensive 
farm bill shows just how dysfunctional it is. Maybe the Congress ought 
to start doing its job.
                                 ______
                                 
                         Comment of Colin Fiske
    Date Submitted: Sunday, May 20, 2012, 10:27 p.m.
    City, State: McKinleyville, CA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Support for monocultured, chemical-intensive commodity 
crops (and the livestock and processed foods into which they are 
transformed) must end. The Federal government must instead use its farm 
bill to support a mix of crops representative of a healthy diet (much 
heavier on the fruits and vegetables, lighter on the grains and meats, 
with a focus on varieties that are intended to be eaten as whole 
foods). The farm bill must also shift its historical priorities 
dramatically and begin to provide financial, educational, and other 
structural support to small farmers who practice sustainable 
polycultures and who are do not rely on economically unstable, finite, 
and biologically and environmentally damaging fossil-fuel based inputs.
                                 ______
                                 
                     Comment of Michael Fitch, Jr.
    Date Submitted: Friday, May 18, 2012, 3:57 p.m.
    City, State: Hartford, CT
    Comment: SNAP benefits are so important in my community because 
they help people with a lot of kids get enough food for the house. 
There are people in my community with 5 to 8 kids in one house and if 
you cut them low the parents will not have enough money in the house to 
feed their kids.
                                 ______
                                 
                     Comment of Macleod Fitzgerald
    Date Submitted: Friday, May 18, 2012, 5:28 p.m.
    City, State: Pfafftown, NC
    Occupation: Retired Acupuncturist
    Comment: I do not like agribusiness altering the natural 
wholesomeness of organic produce and meats. I buy 90% of my food from 
local producers and do not trust the general grocery stores to meet my 
needs. All GMO and irradiated food must be label as such!
    Stop farm subsistence to all growers and allow people to bear the 
costs of consumption.
    No patents for food items!
    Raw certified milk should be allowed in the market!
    Thank you,

Macleod Fitzgerald.
                                 ______
                                 
                        Comment of Erin Fitzner
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Downingtown, PA
    Occupation: Software Analyst
    Comment: I have lived in the U.S. my entire life with the exception 
for 2\1/2\ years when I lived in Europe (as an adult). I find it 
extremely hard to believe that here in the U.S. the basic right of 
knowing what is in the food we eat is not fulfilled. How can we, as a 
country, expect to control the obesity problem in this country when an 
individual has no idea of what they are feeding their bodies as well as 
those of their families. I work in the healthcare industry and have 
read numerous articles on the rise of childhood obesity (not just a 
30lb or less weight issue), diabetes, the fact that 25% of kidney 
transplant donors are ineligible due to issues with their weight. 
Obesity is crippling our health as well as many aspects of our economy 
and yet our Congress and House, the folks that are supposed to 
represent the American people, not American corporations, still have to 
be convinced to let the
    American people know what their food contains. Provide the American 
people detailed information as to what their food contains, and allow 
them to make an informed choice as to what they feed their families.
                                 ______
                                 
                       Comment of Gwendolyn Flagg
    Date Submitted: Friday, May 18, 2012, 2:22 p.m.
    City, State: Tinley Park, IL
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Are you kidding me? With the people starving in this 
country and the rest of the world, we need to be growing food on every 
lawn, back yard, vacant lot, piece of farm land we can find. What is 
wrong with humans today? Don't you understand that what happens to me 
happens to you. Haven't you figured this out yet. Keep this up and we 
will all suffer!
                                 ______
                                 
                      Comment of Marianne Flanagan
    Date Submitted: Friday, May 18, 2012, 7:09 p.m.
    City, State: Des Plaines, IL
    Occupation: Teacher
    Comment: I believe a fair farm bill would take a closer look at 
sugar subsidies--they are being abused. I do not believe SNAP should be 
taken out. As a Head Start teacher I see the benefits of this program 
every day. For some of my kids this is their only nutritious food for 
the day. It is also teaching them healthy eating habits--they want 
their parents to buy fruits, vegetables, and healthy cereals. To end 
this with the amount of poverty in this country is unconscionable. This 
committee needs to pay attention to the faces of hunger in our 
country--take a road trip to a food bank, or low income school.
                                 ______
                                 
                         Comment of David Flate
    Date Submitted: Friday, May 18, 2012, 6:42 p.m.
    City, State: Los Angeles, CA
    Occupation: Real Estate Agent
    Comment: I am not in agreement with the farm bill cutting education 
about nutrition and cutting funds and support for organic farming. Big 
agriculture can no longer run our food supply and GMO's should be 
banned.
                                 ______
                                 
                        Comments of Judy Fleming
    Date Submitted: Friday, May 18, 2012, 11:04 p.m.
    City, State: Imboden, AR
    Occupation: Registered Nurse
    Comment: Mr. Crawford,

    I hope your familiar with this issue, we are not a country who 
wants sick food to eat.
    Frankenfoods as they are called after Frankenstein because it's 
playing god with life. Mixing seeds with Cancer, diseases, and human Di 
nucleic acid/DNA is not natural. Literally these foods are a nightmare 
for our bodies metabolism and health. These seeds from Monsanto are 
nothing more than a corporation instrument for money and genocide. What 
does corporate and food have in Common? NOTHING that's my point. It's 
not for the people of this land of America. Let the Maritime take care 
of their seas and leave the land alone. These Admiralty Statutory 
corporations are purely evil for life. They destroy the food, land and 
sea. Don't let them harm us anymore.
    This is a different concern;
    I have a big problem with the chemtrails in our skies these plane 
trails that don't dissipate after being sprayed out of the cans on the 
jets and military planes are poisoning us with barium, aluminum, and 
nitrous oxide/laughing gas. That is destroying our land, water, and 
health maybe you can influence someone to stop this fraud and 
deception. It's a lot to work, with taking on these corporations, but I 
hope you're the man for the job. Don't let them conquer and destroy us. 
Please! believe what I am telling you, I'm not a hysterical nut
            With Much concern and seriousness,

Judy Fleming

    Date Submitted: Friday, May 18, 2012, 11:16 p.m.
    Comment: I just e-mailed you I know But I found a report to 
validate my case, When I was trying to explain how important this is. 
Please see link: http://www.naturalnews.com/
035904_economy_jobs_zombies.html.*
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.

J. Fleming.
                                 ______
                                 
                        Comment of S.F. Fleming
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Salt Lake City, UT
    Occupation: Business Sector
    Comment: I want to have sustainable agriculture, no GMO foods, and 
organic produce available in all towns in the USA. Farm policy must 
include resources for young organic farmers to get loans to stay on 
small and middle sized farms. Our country is in danger of spoiling our 
soils with the big agriculture way of planting and harvesting.
                                 ______
                                 
                     Comment of Christine Fletcher
    Date Submitted: Friday, May 18, 2012, 3:40 p.m.
    City, State: Santa Barbara, CA
    Occupation: Housewife
    Comment: It is astounding to think that intelligent people, if they 
are guided by any sense of integrity, could be voting the way they have 
been doing on this Committee. My conclusion, therefore, is that the 
disservice done by these Committee members to their own country and its 
people, is purely self serving. They have apparently been bought by the 
profit mongers, who also act only in the interest of themselves. Shame 
on both sets--gambling the future health of generations out of greed. 
For money and power. Resisting common sense laws and requirements is an 
indicator of serious misuse of the trust which was accorded to you. The 
Agriculture Department and it's disgraceful Secretary, along with this 
Committee, are a blot on President Obama's promises to this country. I 
wish he could pay more attention to the abomination you are causing to 
our nation's and the world's food supplies. Your disloyalty to 
everything but your own misplaced profit garnering is Staggering.
                                 ______
                                 
                        Comment of Erin Fletcher
    Date Submitted: Saturday, May 19, 2012, 5:34 p.m.
    City, State: Cedar City, UT
    Occupation: Mother
    Comment: I spend At Least 70% of my expendable income on Organic 
Food and Healthcare products for my family.
    Organic and Sustainable agriculture is Essential to our lives. My 
freedoms to access real, clean, and sustainable food and healthcare 
Must be Respected, and Must be Protected!
    I live in a Rural community, and county, and State, and I know all 
around me that farmers are struggling. Farmers are suffering. The land 
is degraded and water is not abundant. Conventional & Industrial 
Methods are Poisoning my children's futures. They are poisoning Organic 
Farms, farmers, livelihoods with contamination, and Monopoly.
    Give Organic Food and products Equal consideration, consumers Equal 
rights and access, and protect our Rights to Liberty. Nothing less will 
do.
                                 ______
                                 
                        Comment of Ian Fletcher
    Date Submitted: Friday, May 18, 2012, 12:04 p.m.
    City, State: Elmhurst, IL
    Occupation: Public Health Professional
    Comment: It is imperative for the future of our nation that we 
change an archaic program, designed in the Great Depression, to benefit 
real food like fruits and vegetables, rather than subsidize non-food 
like corn-feed, high-fructose corn syrup, and the like. The only way we 
are going to get a grip on the health challenges facing our nation, 
especially obesity and diabetes, is by creating a food system that 
supports healthier eating, not larger consumption.
                                 ______
                                 
                      Comment of Nathan Flickinger
    Date Submitted: Saturday, May 19, 2012, 10:39 a.m.
    City, State: Eggleston, VA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: 500-999 acres
    Comment: Beginning Farmers being cut in half!
    New farmers are our future! There are so many aging farmers, what 
will happen when they pass on? Who will take over their fields and will 
they know what they're doing? I am for the implementation of all 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236).
    Organic research cut by $4 million? Organic agriculture, though not 
the best, is a great form of agriculture. Far superior in its 
sustainability than your conventional ag. Look at the majority of the 
soil of this nation! Depleted, lifeless, over worked. Chemical 
fertilizer is a joke. To say that artificial fertilizer will nourish 
the food that is supposed to nourish our nation? We need to maintain 
the EQIP Organic Initiative. Big ag needs to be swiftly removed from 
the decision making process. Consumers need to be informed of what is 
going on with their food.
    I fully endorse of all provisions of the Local Foods, Farms and 
Jobs Act (H.R. 3286).
    We need conservation programs, such as the Conservation Stewardship 
Program, and make sure that enrollment in any new insurance subsidies 
are tied directly to compliance with conservation programs.
    Please let us make wise choices that are not swayed by money. That 
is so short sighted. We are smarter than that.
    Thank you.
                                 ______
                                 
                      Comment of Danielle Flitter
    Date Submitted: Saturday, May 19, 2012, 4:02 p.m.
    City, State: Portland, OR
    Occupation: Unemployed/Volunteer
    Comment: Quality, local, fresh produce is the cornerstone to a 
healthy life. With levels of obesity amazingly high in children And 
adults changing our food environment to a healthy standard is essential 
for the future health of our nation. Supporting local farmers to 
produce their best crops will not only stimulate the local and national 
economy but bring a healthy standard back to the American life.
                                 ______
                                 
                        Comment of Janyse Florek
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: Sedona, AZ
    Occupation: Self-Employed, Artist
    Comment: Locally grown food from small organic farms must be 
revived and protected in order for Americans to regain their health 
through everyday living. This is a cornerstone for healthy bodies, 
minds, spirits and Economies. They are all linked. Large, chemically 
based agriculture is killing us, physically and economically. Please, 
research this thoroughly. Go no further than to examine your own health 
and your family's health critically and honestly to gain ground level 
perspective. That will take you on a journey of further investigation 
that will change your lives.
            Thank you,

J.F.
                                 ______
                                 
                       Comment of Margaret Flores
    Date Submitted: Friday, May 18, 2012, 6:30 p.m.
    City, State: Dinuba, CA
    Producer/Non-producer: Producer
    Type: Fruits
    Size: 50-150 acres
    Comment: Hello,

    I strongly urge you to provide more funding for small family farms 
like my own and others that are at the forefront of organic food 
production. Without prioritizing this we cannot strive to provide 
affordable and healthy produce to communities in need.
            Sincerely,

Margaret Flores,
Dinuba, CA.
                                 ______
                                 
                       Comments of Sharon Flores
    Date Submitted: Friday, May 18, 2012, 12:50 p.m.
    City, State: Ventura, CA
    Occupation: Gourmet Internet Food Company
    Comment: Our nation's farm bill needs to be updated to encourage 
small farmers, especially organic farmers, and to discourage big 
agriculture which has made food inferior and laden with health issues. 
Big agriculture has been given financial perks that bring inferior food 
products to market while organic farmers must pay high licensing fees 
to bring good healthy food to market. You have the chance to turn the 
tide from America being represented by obese and ill citizens to a 
nation of healthy Americans eating Real food.
    Date Submitted: Saturday, May 19, 2012, 1:14 p.m.
    Comment: The current farm bill encourages bad and dangerous farming 
practices and does not encourage small farmers and organic farmers. For 
the future health of our nation the farm bill needs to change from 
large factory farms getting subsidies to smaller, sustainable farms 
receiving government assistance.
                                 ______
                                 
                        Comment of Yomei Flores
    Date Submitted: Friday, April 20, 2012, 12:25 p.m.
    City, State: San Antonio, TX
    Occupation: SAFB/Senior Program Coordinator
    Comment: We need the farm bill to protect programs like CSFP, SNAP, 
and TEFAP. I see the faces of relieve when these households get the 
assistance from these programs every day. Many seniors are low income 
and many families cannot find jobs.
                                 ______
                                 
                        Comment of Ruth Flournoy
    Date Submitted: Monday, April 23, 2012, 7:04 p.m.
    City, State: Houston, TX
    Producer/Non-producer: Producer
    Type: Other
    Size: 1,000+ acres
    Comment: I support the conservation programs in the proposed Farm 
bill and ask that conservation easements be reinstated and made 
permanent. I support the cost-share programs such as CRP, EQIP, WHIP, 
and CSP.
                                 ______
                                 
                        Comment of Ruthie Flynn
    Date Submitted: Friday, March 16, 2012, 2:56 p.m.
    City, State: Sonora, CA
    Occupation: Retired Registered Nurse
    Comment: I understand the farm bill includes provision for food 
pantries across the U.S. who provide food for needy families. I hope 
the upcoming farm bill will continue this provision in food pantries as 
they seek to provide food for families in need across our nation.
                                 ______
                                 
                         Comment of Sarah Flynn
    Date Submitted: Tuesday, May 15, 2012, 7:26 p.m.
    City, State: Portland, OR
    Occupation: Nonprofit
    Comment: I was deeply upset by the cuts to the SNAP program in the 
Senate agriculture committee's version of the farm bill. These cuts 
would have a devastating impact on the heath and economic security of 
families that are already on the brink. If parents can't afford to feed 
their children a nutritious diet, it puts to future of our country in 
jeopardy. The impact of food insecurity is much broader than some 
people realize. When children don't get enough food, it can have a 
lifelong impact. They might not do well in school, they might develop 
much more expensive health problems, and the memory of hunger can have 
a long lasting impact. I know people who didn't have enough to eat at 
some point during their lives, and that experience haunts each of them 
in different ways. One man I know overeats now because of a strong 
emotional attachment to food that developed when he went hungry earlier 
in his life. He has become obese and developed expensive medical 
conditions that might have been prevented at a much lower cost if he 
had access to adequate nutrition earlier in his life. He suffers 
because of his poor health, but he suffers much more profoundly because 
of his belief in his own personal responsibility for all of his 
actions. He blames no one else, only himself, and that self-blame only 
makes it harder for him to turn his life around. As individuals, we 
need to live with the consequences of our actions. But we also need to 
understand that as citizens of the United States we have to take 
collective responsibility for our society's actions, past and present. 
We need to protect the public programs that comprise our nation's 
safety net, because the safety net is one of the most important ways 
our society accepts responsibility for our collective failures and 
sins. Please support all of the food assistance programs within the 
farm bill, especially SNAP and TEFAP, not only because helping people 
is the good thing to do, but also because it's the responsible thing 
for our government to do.
                                 ______
                                 
                        Comment of Joseph Foegen
    Date Submitted: Saturday, May 19, 2012, 7:03 a.m.
    City, State: Hamburg, NY
    Occupation: Grocery Retail
    Comment: Dear Mr. Higgins,

    Americans have been voting with their wallets as is evident by the 
upsurge in organic food sales. Furthermore, recent polls have found 
that consumers want to know if the foods they are buying contain GMOs. 
Cutting any spending that would hinder the growth of organic, 
sustainable agriculture would go against consumer trends and desires. 
My questions to you are simple:

    (1) Do you eat?

    (2) Do you care about what you eat, including its impact on your 
        health?

    (3) Do you feel everyone has the right to both pursue the growing 
        of healthy, sustainable food, as well as consuming healthy, 
        sustainable food?

    If you answered yes to any or all of these questions it's time for 
you to support the farm bill as it was introduced.
                                 ______
                                 
                         Comment of Dan Fogarty
    Date Submitted: Saturday, April 28, 2012, 5:08 p.m.
    City, State: Santa Rosa, CA
    Occupation: Retired
    Comment: A strong farm bill is always mandatory, but particularly 
in these times. Please support such a bill by continuing the TEFAP, 
SNAP and CSFP programs. They are essential to maintain adequate access 
to food for hungry Americans.
    Thank you for your time.
                                 ______
                                 
                         Comment of Jean Fogel
    Date Submitted: Friday, May 18, 2012, 9:23 p.m.
    City, State: Portland, OR
    Occupation: Teacher
    Comment: The people that consider food a personal choice deserve to 
be represented. We want our food protected, labeled and free of 
pesticides. Organics meet these standards and deserve to be supported 
in their efforts. It has been proven that big Agra co-opts the 
marketing strategy of organics, but does not produce in the same 
manner. Protect Our Local Farmers And Families That Demand Clean Food.
                                 ______
                                 
                          Comment of Ken Fogel
    Date Submitted: Friday, May 11, 2012, 4:39 p.m.
    City, State: Stone Mtn., GA
    Occupation: Massage Therapist
    Comment: The large scale industrial farming in existence today is 
focused on quantity and how much money can be made, but the average 
citizen is made to pay the price in the long run in terms of health.
    The food is loaded with chemicals, pesticides, antibiotics, growth 
hormones, GMO's, and we wonder why diabetes is now an epidemic.
    Mad cow disease, as was recently in the news does not happen if 
cows are grazing on grass as nature intended. Feeding cows animals by-
products should be illegal.
    Local and organic farming needs to be supported for the health of 
the people and for supporting local economies and conservation of 
energy resources.
                                 ______
                                 
                         Comment of Kyle Foley
    Date Submitted: Monday, May 14, 2012, 5:45 p.m.
    City, State: Wakefield, MA
    Occupation: Graduate Student
    Comment: Please do not allow cuts to conservation programs--and 
please fully fund them. Crop insurance should be re-linked to 
conservation compliance--we need to stop the degradation of our 
farmland and waterways before it's too late. Also, please support the 
lending and granting programs for beginning farmer and rancher 
development--a generation of farmers is going to retire in the next 10 
years, and we're going to be in a lot of trouble if we don't support 
young & beginning producers. Mandatory funding is required. 
Additionally, please support funding for research (on organics, 
specialty crops, conservation practices, etc.)--public money is needed 
for these issues that are so important to our future food security, 
health, and our environment. Thank you!
                                 ______
                                 
                       Comment of Therese Folsom
    Date Submitted: Friday, May 18, 2012, 8:35 p.m.
    City, State: Columbia, MO
    Occupation: Massage Therapist
    Comment: Please pass a farm bill that protects us from corporate 
agriculture and helps provide Americans with the safe food they 
deserve. It doesn't have to be big to work.
                                 ______
                                 
                          Comment of Ted Fonk
    Date Submitted: Saturday, May 19, 2012, 8:49 a.m.
    City, State: Union Grove, WI
    Producer/Non-producer: Producer
    Type: Bioenergy, Field Crops, Livestock, Poultry/poultry products, 
Vegetables
    Size: 151-300 acres
    Comment: It is time to start doing what is right/best for the 
planet and everyone living on it and not what is financially beneficial 
to a few. Corporate interests are leading us down a dangerous path. You 
need to look no further than the sharp decrease in bee population to 
see this. Think with your hearts and your heads and turn a blind eye to 
hazardous corporate interests.
                                 ______
                                 
                       Comment of Candis Fonooni
    Date Submitted: Friday, May 18, 2012, 5:28 p.m.
    City, State: Atlanta, GA
    Occupation: Student/Nanny
    Comment: Please Do Not cut funding for nutrition and the overseeing 
of healthy, organic, Real food. GMO's Must be labeled, as the consumer 
has a right to know what they are putting into their bodies and their 
family's bodies. You Are What You Eat. Let's regulate this farm bill so 
that Every American can have a healthy plant based diet. Pesticides 
have no room in our diets!
                                 ______
                                 
                        Comment of Theesa Fonti
    Date Submitted: Wednesday, May 16, 2012, 10:08 a.m.
    City, State: Hartford, CT
    Occupation: Social Service Program
    Comment: The existing SNAP and food programs to help the needy are 
vital to many individuals who live in poverty. Please keep the present 
funding in place.
                                 ______
                                 
                         Comment of Torie Foote
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Spokane, WA
    Occupation: Starting Organic Farm
    Comment: As someone struggling to start a local organic farm, 
sitting between large heavily subsidized, overly pesticide land, I 
think it is important to the future of food production to grow locally 
and ``cleanly''. Don't kill our efforts! We should be supported At 
Least as much as those that are doing more harm than good.
                                 ______
                                 
                        Comment of Reese Forbes
    Date Submitted: Wednesday, May 16, 2012, 7:23 p.m.
    City, State: Saint Louis, MO
    Occupation: Retired
    Comment: We need more research into organic farming methods and 
need to insure that no GMO farming is subsidized. Farm need to get back 
to local and small--provide money to make that happen.
                                 ______
                                 
                         Comment of Leeann Ford
    Date Submitted: Thursday, May 17, 2012, 12:19 p.m.
    City, State: Eugene, OR
    Occupation: Accountant
    Comment: The farm bill needs to support the needs of family farmers 
and rural communities, not just big agribusiness. We need to support 
food and economic security by protecting the quality of farmland and 
developing the next generation of farmers.
                                 ______
                                 
                         Comment of Steve Ford
    Date Submitted: Friday, May 18, 2012, 2:08 a.m.
    City, State: Casper, WY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I would like to see more funding for Organic research as 
well as helping conventional farmers transition to organic, also 
critical is funding to support new young farmers and help younger 
farmers be involved with apprentice programs with older ready to retire 
framers, especially in the organic sector.
    Stop subsidizing the huge farms, put some of that money to use 
helping sustainable AG programs and local food production.
                                 ______
                                 
                       Comment of Nancy Forehand
    Date Submitted: Friday, May 18, 2012, 3:25 p.m.
    City, State: Green Cove Springs, FL
    Occupation: Programmer
    Comment: It is time to put you vote where your mouth is--protect 
our small farms and develop new organic operations. Every year the bad 
news from pesticide overuse increases. We are killing ourselves and our 
children along with the bugs. As a taxpayer and consumer, I do not want 
to fund these destructive practices.
                                 ______
                                 
                      Comment of Christina Forino
    Date Submitted: Friday, April 27, 2012, 2:30 p.m.
    City, State: Oxnard, CA
    Occupation: Program Coordinator for Seniors and Children
    Comment: Dear Members of the House Committee on Agriculture,

    Cutting programs that put food on the table for hungry Americans is 
unacceptable. Most are the working poor who need help getting food on 
their tables.
                                 ______
                                 
                      Comment of Kai Mikkel Forlie
    Date Submitted: Friday, May 18, 2012, 6:23 p.m.
    City, State: Burlington, VT
    Occupation: Landlord
    Comment: I am writing to urge your committee to prioritize organic, 
biodynamic, and permaculture farming methods over the unsustainable, 
destructive and expensive conventional form of agriculture currently 
emphasized. We need to adapt now to our looming low-energy future! Peak 
energy and climate change are the effects of our unsustainable way of 
life. We need to align our agricultural system with our need for 
continued life on Earth! Stop subsidizing ethanol production. Stop 
subsidizing conventional farming practices. Stop the use of synthetic 
fertilizers, synthetic insecticides, synthetic herbicides, etc. Stop 
GMO crops. Support small and medium sized farms. Support CSA's. Support 
farmers markets. Support nutrition programs. Support education 
programs. Support young farmers programs (for organic farming).
    Thank you.
                                 ______
                                 
                         Comment of Aimee Formo
    Date Submitted: Friday, May 18, 2012, 12:47 p.m.
    City, State: Indianapolis, IN
    Occupation: Public Servant (State Government)
    Comment: Legislation absolutely must support and grow sustainable 
and organic agricultural practices. As a working mother, I am faced 
with an ever-increasing number of unhealthy food choices for my family 
and difficulty sourcing responsibly-grown, healthy produce and meats. I 
will not purchase GMO, non-organic produce or proteins from an 
intensive farming operation, as the nutritional profile and potential 
side effects are too risky. As a consumer and parent, it is very 
important to me that healthy agricultural products that haven't been 
tampered with by big business and chemical corporations be available 
even in food deserts in urban areas of my city, and not just to middle 
class people like me. That will necessitate a very strong farm bill 
that supports responsible agriculture.
                                 ______
                                 
                       Comment of Michael Forster
    Date Submitted: Friday, May 18, 2012, 2:11 p.m.
    City, State: Portland, OR
    Occupation: Computer Scientist
    Comment: It is vital that farm subsidies be realigned with what our 
health needs are. We need to eliminate artificial support for fuel, 
corn, soy and instead support fresh fruits and vegetables, natural non-
grain fed livestock and fowl. The increasingly toxic waste support for 
sprays and livestock and subsidies supporting highly processed foods is 
killing us.
                                 ______
                                 
                        Comment of Helen Fosdick
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: Houston, TX
    Occupation: Retired
    Comment: Do not allow any GMOs into our agriculture. Nor harmful 
chemicals or polluted waters. Support local farmers and all those who 
use sustainable methods of growing our food. Do not let Corporations 
rule. You represent We The People, not the Corporations. The well-being 
of lands and people should be your first concern. Thank you.
                                 ______
                                 
                        Comment of Pauline Foss
    Date Submitted: Friday, May 18, 2012, 1:25 p.m.
    City, State: Colorado Springs, CO
    Occupation: Professor
    Comment: When you are considering which way to vote please consider 
that people and the planet will benefit from the increase and support 
of organic farmers and small family farms. Big agribusiness complexes 
have wreaked havoc on the environment, practice inhumane methods in 
their treatment of livestock, and put small family farms out of 
business.
            Thank you,

Pauline Foss.
                                 ______
                                 
                         Comment of Lee Fossett
    Date Submitted: Saturday, May 19, 2012, 9:26 p.m.
    City, State: Berea, KY
    Occupation: Full-Time Student
    Comment: Please support farmers; they need a voice. Who knows, 
maybe someday our lives will be in their hands again (like the old 
days). Especially if we change our dependence on oil and have to buy 
local again. Please be an advocate for the farmer whenever possible. 
They need us. They do more than anyone with less than anyone. Thanks.
                                 ______
                                 
                        Comment of Elaine Foster
    Date Submitted: Friday, May 18, 2012, 10:13 p.m.
    City, State: Huntersville, NC
    Occupation: Retired
    Comment: I am outraged that the government which is put in power by 
the people have been taken over by big industrial agricultural business 
interest. How dare the Federal/state govt. attack the small farmers who 
try to provide the food the public wants (Whole Milk, grass fed meat 
and products) What happened to our freedom of choosing healthy whole 
foods from a small farm, The U.S. Govt. would rather force feed us 
chemical laced Doritos and Twinkies . . . that have no nutritional 
value? I am saddened by the state of our govt. agencies (FDA, USDA/Dept 
of Agriculture to name a few) attack on the small family farm and 
Organic farms of this country. It seems that big industry has been 
running Gov't. agencies in their favor. I want the freedom to choose my 
own food without the Govt. interfering!
                                 ______
                                 
                        Comment of Karen Foster
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: Virginia Beach, VA
    Occupation: Retail
    Comment: Our food is getting worse because big agriculture is 
making it that way. You do not label GMO's, Pink Slime Ect. . . . we 
can only afford cheap unhealthy food that large corporations are 
churning out for their profit. We need to stop the profit of our 
politicians for letting them do this to us. We need change, but big ag 
won't allow this to happen!
                                 ______
                                 
                       Comment of Michael Foster
    Date Submitted: Friday, May 18, 2012, 1:50 p.m.
    City, State: Seattle, WA
    Occupation: Counselor
    Comment: The big picture shows a system that is eating itself not 
nourishing the land, not nourishing the people. Please give your 
thought to the most sustainable agricultural policies.
                                 ______
                                 
                       Comment of Leslie Foumberg
    Date Submitted: Friday, May 18, 2012, 2:57 p.m.
    City, State: Calabasas, CA
    Occupation: Computer Parts Reseller
    Comment: As a tax-paying citizen of the United States, I demand 
that consumers have the ability to know when foods contain GMOs and 
that they be labeled as such. We also have the right to ingest raw and 
unprocessed foods whether FDA approved or not as the FDA approves all 
kinds of things I wouldn't knowingly consume like antibiotics in milk 
and meats. Allow for raw and natural farming.
                                 ______
                                 
                        Comment of Sesame Fowler
    Date Submitted: Friday, April 27, 2012, 9:22 p.m.
    City, State: Gardner, CO
    Occupation: Retired
    Comment: These programs--TEFAP and SNAP and others are of utmost 
importance--especially Now! Our economy is in shambles and good quality 
food is not available to seniors, children and low income families. 
More than ever we need your help to keep these programs available. 
Please help--please feed the hungry.
    Thank you so much.
                                 ______
                                 
                          Comment of Agnes Fox
    Date Submitted: Saturday, May 19, 2012, 1:17 p.m.
    City, State: Knoxville, TN
    Occupation: Speech-Language Pathologist
    Comment: As a consumer, I have educated myself on the effects the 
food I eat has on my body. As a caring citizen, I have researched the 
effects that supporting local versus large-scale commodity farmers has 
on my neighbors and our country as a whole. Therefore, I support local 
agriculture that produces non-GMO products.
    I respectfully request that the House Agriculture Committee support 
the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                Comment of Masha Foy, M.A., R.D., C.D.E.
    Date Submitted: Sunday, May 20, 2012, 7:24 a.m.
    City, State: Scott Township, PA
    Occupation: Nutritionist
    Comment: Monsanto a disgrace to our country. To paten seeds is 
wrong. It is unhealthy to have GMO in food and FDA pays this no 
attention. The small farmer has been hurt so Americans can have cheep 
unhealthy food.
    Please do your home work on this, our children are at stake and our 
future.

Masha Foy, M.A., R.D., C.D.E.
                                 ______
                                 
                        Comment of Kristen Frame
    Date Submitted: Friday, May 18, 2012, 12:27 p.m.
    City, State: Fairfield, CT
    Occupation: Manager--Financial Services
    Comment: I am concerned with the methods being used in our food 
production. We have adopted an attitude that ``there are no proven 
concerns yet, so we'll use until we know otherwise'', whereas many 
other countries are refusing to adopt these methods/pesticides/
byproducts until they are deemed SAFE. The cancer and allergy rates in 
the U.S. are alarming, and it's hard to think that our food supply has 
no involvement. We need to be more prudent in how we are producing 
food. Health care and other costs in the end are the price we will 
pay--which should be of concern to Congress. Thanks!
                                 ______
                                 
                      Comment of Lelia Ann Francis
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: Horseshoe Bay, TX
    Occupation: Retired
    Comment: I have a great concern about what citizens of this great 
country are being forced to buy and eat. Please carefully consider the 
health issues involved in the growth and production of our produce and 
cattle and dairy goods.
                                 ______
                                 
                        Comment of Faith Franck
    Date Submitted: Thursday, May 17, 2012, 1:08 p.m.
    City, State: Las Vegas, NV
    Occupation: Retired
    Comment: I am convinced that the pesticide, fungicide and herbicide 
laden food grown industrially in what has become nutrition poor soil in 
this country is the culprit in our health & obesity problems. These 
foods do not provide adequate or good nutrition unlike sustainable and 
organically grown foods and edible animals. I grew up in an era when 
sustainable agriculture was the norm which may be why my generation 
lives longer--our children will not have that option due to the poor 
food they have eaten in their lifetimes.
                                 ______
                                 
                         Comment of Amy Franco
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Chicago, IL
    Occupation: Project Coordinator and Grad Student
    Comment: Please continue to support beginning farmers and ranchers, 
local food and organic initiatives, and the Conservation Stewardship 
Program. Such programs are vital to economic growth and the health of 
our land in the long-term.
                                 ______
                                 
                        Comment of Leroy Frankel
    Date Submitted: Friday, May 18, 2012, 4:31 p.m.
    City, State: Longmont, CO
    Occupation: Retired Home Grower
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Stop the latest agribusiness boondoggle that gladly steals food 
from the mouths of the hungry to create a ``$33 billion new entitlement 
program that guarantees the income of profitable farm businesses.'' 
That's on top of $90 billion in subsidies for crop and revenue 
insurance policies.
    By failing to place limitations on crop insurance subsidies and to 
re-attach soil erosion and wetland conservation requirements to crop 
insurance programs, the Committee has failed to do the full reform that 
is needed.
    It's time for real reform.
    Thank you.
                                 ______
                                 
                      Comment of Jean Frankenstein
    Date Submitted: Friday, May 18, 2012, 1:26 p.m.
    City, State: Telluride, CO
    Occupation: Associate
    Comment: I do not want to feed my children food that is genetically 
modified to the point where bees and butterflies won't even go near it. 
I want to eat good, wholesome foods that are Safe, Healthy and good for 
both my children and the environment. It's disgraceful that you've let 
large corporations take over and create a disaster and mockery of our 
food. Greed should not replace common sense and decency. I fear it's 
too late . . .
                                 ______
                                 
                      Comment of Barbara Franklin
    Date Submitted: Saturday, May 19, 2012, 12:06 a.m.
    City, State: Honokaa, HI
    Occupation: Bankruptcy Attorney
    Comment: I have talked to a number of farmers to advise them in 
this current economy; it is critical that you support the farm bill. We 
must have sustainable agricultural on this island and we must have 
vibrant farms to do that.
                                 ______
                                 
                       Comment of Cheryl Franklin
    Date Submitted: Wednesday, March 21, 2012, 7:13 a.m.
    City, State: Calera, AL
    Comment: Please create a strong farm bill, which protects programs 
such as SNAP, so that struggling seniors, children, and families can 
have their increasingly urgent nutritional needs met.
                                 ______
                                 
                        Comment of Allan Franks
    Date Submitted: Wednesday, May 09, 2012, 2:50 p.m.
    City, State: Vallejo, CA
    Occupation: Ordained Minister
    Comment: As a Pastor in Vallejo, CA I see the effects of the recent 
recession still affecting the people of our city. Our church has a food 
box ministry and we see a continual stream of people who need food to 
survive. Please vote to support SNAP, TEFAP and CSFP. Your vote will 
help us to be able to keep giving much needed food to hungry people in 
our city.
                                 ______
                                 
                        Comment of Jeanne Franks
    Date Submitted: Friday, May 18, 2012, 12:45 p.m.
    City, State: Oceanside, NY
    Occupation: Physician
    Comment: I am increasingly alarmed at the ``progress'' and 
infiltration of our food supply by GMO crops. The consequences of this 
are devastating. We MUST return to more organic and natural methods and 
protect farmers and their traditional crops from this menace.
                                 ______
                                 
                        Comment of James Fraser
    Date Submitted: Friday, May 18, 2012, 5:41 p.m.
    City, State: Rome, GA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: As someone who works on a small organic farm in Georgia I 
don't want any special treatment. I would just like to know that the 
huge agribusiness companies are not given subsidies and tax breaks that 
make it unfair for us to compete in the free market. Thanks for your 
help looking out for small farmers.
                                 ______
                                 
                       Comment of Christa Frazee
    Date Submitted: Friday, May 18, 2012, 1:54 p.m.
    City, State: Ventura, CA
    Occupation: Homemaker/Mother
    Comment: Please support organic foods and research . . . it is 
necessary for our children's health and longevity . . . It saddens me 
that our country is being poisoned by pesticides and GMO's . . . nature 
is being destroyed . . .
                                 ______
                                 
                    Comment of Patty and Bob Frazer
    Date Submitted: Friday, May 18, 2012, 5:57 p.m.
    City, State: Orinda, CA
    Occupation: Retired Marketing
    Comment: By caving to agribusiness, you prohibit the real 
conversation about obesity that needs to take place. The role of 
processed food in the obesity! And the terrible nutritional quality of 
all processed food. When will you as elected officials make decisions 
for the welfare of the people and not for business?
                                 ______
                                 
                        Comment of Carol Frazier
    Date Submitted: Friday, May 18, 2012, 4:35 p.m.
    City, State: Nashville, TN
    Occupation: Small Business Owner
    Comment: Farmers and eaters across the U.S. need a fair and healthy 
farm bill! We should not be cutting funding to vital programs such as 
nutrition, conservation and support for organic and sustainable 
agriculture.
    The proposed subsidized insurance program will allow giant 
commodity farmers and insurance companies to walk away with billions in 
taxpayer dollars while putting the land, soil and environment at 
greater risk. The Senate Agricultural Committee has already voted to 
cut $4 million from organic research funding and cut funding to support 
Beginning Farmers in half. This is absolutely ridiculous! We know that 
the health and survival of a nation depends on it's people being able 
to grow and sustain healthy crops and soil, the main way to do this is 
thru organic and sustainable farming methods. Also we have more and 
more young people who are choosing to become farmers, a giant shift in 
priorities, and we need to support this move! The public is talking 
with their pocket books in seeking out local farmers and organic 
produce and meat. Congress is not listening and is instead following 
the lead of huge farming corporations and Monsanto, with their 
increasingly troubling GMO seed--I hope you have been educating 
yourself about this catastrophe-in-the-making. Please support:

    (1) The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    (2)Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    (3)The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    (4)Maintaining the EQIP Organic Initiative.

    Thank you!
                                 ______
                                 
                      Comment of Kimberly Frazier
    Date Submitted: Saturday, May 19, 2012, 12:14 p.m.
    City, State: East Bethel, MN
    Occupation:
    Comment: Dear Congress-people, Please Learn about what you are 
voting on and why people like us have to remind you why we need to do 
this. Cancer is a problem that won't go away if you don't have food 
that is grown without Chemicals. Chemicals kill more than the bugs or 
the nuisance plants that invade our fields and gardens. It kills 
important nutrients and vitamins in soils that go into our foods that 
helps our bodies grow and fight off sicknesses and disease. You know 
someone with cancer and you want to help them the best thing you can do 
for them is to Vote for Organic Farming and learn about the Gerson 
Therapy Cancer Cures so When possibly you face Cancer you will have a 
Cure! I hope you will take this seriously like you do your paychecks.
                                 ______
                                 
                        Comment of Ruth Frazier
    Date Submitted: Friday, May 18, 2012, 1:14 p.m.
    City, State: Charlotte, NC
    Occupation: Homemaker
    Comment: Please hear! Growing up on an organic farm before organic 
became a household word, it is a challenge to find food that babies, as 
well as adults can eat without developing allergies, etc. The U.S. food 
and agricultural policy must focus on adopting best agricultural 
practices that put the health of its citizens, the land and the 
livelihood of farmers and farm workers over the interests of industrial 
agriculture lobbyists.
    Unfortunately, we as a nation are not there yet. Not only are our 
politicians out of touch with the values of the American people, but 
corporate agribusiness has a stranglehold on our regulatory system and 
our political leaders. How will we survive as a nation and a people if 
we die before our time because of food conditions in our land? Please 
take heed. Thank you!
                                 ______
                                 
                       Comment of Chad Freckmann
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Charlottesville, VA
    Occupation: Energy Consultant
    Comment: I urge you to include:

  <bullet> Packer Ban: Allowing meatpackers to own the animals they 
        slaughter reduces competition for livestock raised by 
        independent farmers and ranchers. A ban on the ownership of 
        livestock by meatpackers would afford family farmers the 
        opportunity to remain independent and retain control over their 
        operations.

  <bullet> Protect Organic Agriculture: I urge you to protect the 
        organic cost-share program, amend the AFRI program to require 5 
        percent of funding to go to the development of locally adapted, 
        publicly available seeds and breeds, and to keep language from 
        the last farm bill that would assure organic producers that 
        they are not required to pay unfair surcharges to access crop 
        insurance.

  <bullet> Protect Country of Origin Labeling: Consumers started to get 
        this basic information about their food just a few years ago. 
        We need more information about where our food comes from, not 
        less, and this farm bill should not weaken the current 
        requirement for mandatory country of origin labeling for meat, 
        poultry, fruits and vegetables, seafood and nuts.

  <bullet> Change language identifying Fruits and Vegetables as 
        ``Specialty Crops'' and call them what they are. Then focus 
        more program resources to Fruits and Vegetables that will 
        encourage more local production.
                                 ______
                                 
                     Comment of Ruth Ann Fredenthal
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: New York, NY
    Occupation: Artist
    Comment: Healthy food is essential for all humans and the 
environment. It is also more economically sound both for farmers and 
consumers. If people ate healthy food, our medical burdens would be 
substantially less as we all know you are what you eat and an unhealthy 
diet full of pesticides and GMO foods makes people ill. And drives them 
to the doctor. The government should support organic food and 
sustainable practices by local small farmers. Giant farms are polluters 
who ruin the environment and make people ill costing the country 
billions of unnecessary dollars. They do not need subsidies but small 
farmers do. Nature knows better than the U.S. government.
                                 ______
                                 
                        Comment of Luis Freedman
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: Rockville, MD
    Occupation: Physiologist
    Comment: The destruction of America's food supply is the number one 
concern I have for the future of this country. We are now seeing the 
health of the American people deteriorate, in general, as a direct 
result of the poor quality of food we must eat. The concept of turning 
over this most important part of our lives and our health, to corporate 
greed and chemical intensive farming, and use of inadequately tested 
GMO foods is unconscionable. The health of the American people and 
protection of the environment should be the factors that guide our food 
production decisions, NOT corporate greed/profit and politics. 
Additionally, we Must have full disclosure of GMO food And chemicals 
used on our food. It is our right to know what we are eating, and it is 
wrong for government to keep this knowledge from us.
                                 ______
                                 
                         Comment of Susan Freel
    Date Submitted: Friday, May 18, 2012, 3:15 p.m.
    City, State: New York, NY
    Occupation: Filmmaker
    Comment: I buy organic products, locally grown and nationally 
provided, almost exclusively--milk, fruit, vegetables, fish, poultry, 
bread, etc. I live in a highly concentrated urban area with farmer's 
markets in our parks from one end to the other. These organic farmers 
are my neighbors. They produce their food just outside my city. They 
need their livelihood protected. Do it! Protect these small farms in 
the counties just outside NYC. I eat their food and we all know organic 
is better for our health and our environment. In your plans for future 
farm policy, please put an emphasis on encouraging smaller, organic 
farm production. Thank you.
                                 ______
                                 
                        Comment of Geri Freeman
    Date Submitted: Friday, May 18, 2012, 9:35 p.m.
    City, State: Dudley, MA
    Occupation: Student
    Comment: I don't like the GMO of corn or anything else. What 
happened to regular farming. The use of good organic soil, and planting 
crops in the USA. Put Americans back to work, instead of trying to come 
up with new ways to mess with nature. By growing organic, the food 
actually has good nutrition, instead of it being added or have no taste 
at all.
    Whatever is being done to Our Food, We The American People Have A 
Right To Know What And Which Products Have Been Tampered With Or Grown 
GMO.
                                 ______
                                 
                     Comment of Jacqueline Freeman
    Date Submitted: Thursday, May 17, 2012, 12:56 p.m.
    City, State: Battle Ground, WA
    Producer/Non-producer: Producer
    Type: Dairy, Livestock, Poultry/poultry products, Specialty Crops, 
Vegetables
    Size: Less than 50 acres
    Comment: Subsidies no longer work as a reasonable method of funding 
corporations. Please reapportion funds to sustainable farmers who use 
less or no chemicals (thus preserving the health of our environment) 
and who produce multiple diverse products rather than monocultures.
                                 ______
                                 
                       Comment of Joseph Freeman
    Date Submitted: Friday, May 18, 2012, 1:25 p.m.
    City, State: Paradise Valley, AZ
    Occupation: Homemaker
    Comment: I believe we need to take American farm policy out of the 
hands of agribusiness, and reorient it to small farmers, specifically 
organic producers and producers serving local markets. In addition, we 
need to do more to protect the welfare of the animals we raise for 
food. Overly-large-scale operations are inherently predisposed to the 
abuse of their livestock. I buy only cruelty-free products, and local 
when and where I can. There are more consumers like me every day, and 
we would like to see our concerns addressed in the farm bill. Thank 
you.
                                 ______
                                 
                        Comment of Mary Freeman
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: San Luis Obispo, CA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Having watched the continued subsidization of large 
corporate farms to the disadvantage of small, organic producers, I urge 
you to vote to change the way we spend our agricultural funds and 
encourage a promising trend toward sustainable farming.
                                 ______
                                 
                        Comment of Sandy Freeman
    Date Submitted: Friday, May 18, 2012, 11:04 p.m.
    City, State: Virginia Beach, VA
    Occupation: Counselor
    Comment: Americans need more organic and sustainable farms, 
particularly robust local farms. Supporting a healthy farm bill that 
addresses this need is a vote for better health and a higher quality of 
life.
    Cast your vote for organic and sustainable farmers and U.S. 
citizens!
                                 ______
                                 
                       Comment of Thomas Freeman
    Date Submitted: Friday, May 18, 2012, 12:47 p.m.
    City, State: San Luis Obispo, CA
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: It is time to act for the sustainable future and the 
health of our country and give equitable support for small family 
farms. We need more support for nourishing producers of locally grown 
healthy foods. The future of our nation depends on you.
                                 ______
                                 
                         Comment of Jan Freese
    Date Submitted: Friday, May 11, 2012, 1:03 a.m.
    City, State: Tucson, AZ
    Occupation: Retired/Housewife
    Comment: Please! Pass this bill! We have far too many people who 
are hungry in our community and the food bank is struggling to feed all 
those who need help. There is no excuse for people in this country to 
go hungry. Cut some aid for foreign countries, if necessary, but not 
for our own people!
                                 ______
                                 
                         Comment of David Freid
    Date Submitted: Friday, May 18, 2012, 12:04 p.m.
    City, State: Brooklyn, NY
    Occupation: Editor
    Comment: Please put the health of the nation and the pursuit and 
use of the best agricultural practices--like conservation programs and 
organic research funding--first, before corporate profits.
    Also, please don't slash the food stamp program and keep 
entitlement programs for big business.
    Allowing giant commodity farmers and insurance companies walk away 
with billions is socialism for the rich. It shouldn't be allowed!
                                 ______
                                 
                        Comment of Lynn Freitag
    Date Submitted: Friday, May 18, 2012, 2:18 p.m.
    City, State: Rolling Meadows, IL
    Occupation: Official Court Reporter
    Comment: There is probably nothing that has a greater impact on our 
health than the nutrition we do or do not get from our food. It is 
vitally important for the health of our nation that we do everything we 
can to ensure organic farms thrive. GMO crops are poisoning our soil 
for generations to come. Please, this is no time for cutbacks to 
organic growers.
                                 ______
                                 
                       Comment of Amanda Freitas
    Date Submitted: Sunday, May 20, 2012, 11:52 p.m.
    City, State: West Hartford, CT
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I'd like to share my 
support for programs that help the next generation of growers build 
strong farm businesses. As it's estimated that 125,000 farmers will 
retire in the next 5 years, it's absolutely critical that farm bill 
programs help citizens get started in this challenging field. I ask 
that the Committee endorse all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country. 
        Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill. Most importantly, I urge you to do all you 
can to curb the amount of money going to biotechnology research. The 
very small percentage of funding allocated specifically to more 
ecologically sound farming methods is a travesty, particularly as 
concern grows about the disturbing studies that are gradually 
illuminating all the ill-effects of GMO foods. We are gambling with 
American's lives, and all on the American taxpayers' dollars. Big Ag 
does not need any more help--they've done and received quite enough. 
The future of farming is with the little guy, which is who the farm 
bill should be helping anyway--those who would contribute to the 
economy, to our national security, and to our quality of life, but who 
need a bit of a hand to do so. Thank you for your consideration.
            Sincerely, Amanda Freitas

Amanda Freitas,
[Redacted].
West Hartford, CT.
                                 ______
                                 
                          Comment of J. French
    Date Submitted: Friday, May 18, 2012, 2:23 p.m.
    City, State: Oakland, CA
    Occupation: Filmmaker
    Comment: Pesticides are killing the race and the animals and the 
planet (have you thought about what is causing all of this infertility 
in humans? hmmmmmmm).
    Support organics if you like human beings.
                                 ______
                                 
                      Comment of Jim & Lisa French
    Date Submitted: Tuesday, April 24, 2012, 6:30 p.m.
    City, State: Partridge, KS
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock
    Size: 500-999 acres
    Comment: April 20, 2012

    Dear members of the U.S. House Agriculture Committee:

    I am writing today to offer comments on the reauthorization of the 
farm bill. Crafting effective and fiscally responsible agriculture 
policy is essential for the future.
    My wife and I were both reared on the farms we now manage. We are 
fifth generation Reno County, KS farmers and ranchers. Both of us also 
work in jobs that complement our agricultural interests. Lisa 
coordinates the Cheney Lake Watershed Project; and I am the Agriculture 
Advocacy Lead for the global development organization, Oxfam America.
    Both of us believe that for U.S. agriculture to remain profitable, 
productive, and resilient, we must have farm programs that support risk 
management and conservation while not distorting the market or putting 
current trade agreements at risk.
    First, I take advantage of federally subsidized crop insurance. It 
made a tremendous difference last year as we experienced severe drought 
and suffered complete loss of our fall crops. However, we oppose moving 
toward shallow loss revenue programs. Shallow loss programs will 
definitely distort planting decisions and provide incentives for 
farmers to take on greater risk than is advisable.
    Second, moving to increase target prices and loan rates is a move 
in the wrong direction. We already know that our current marketing loan 
and countercyclical program are within the Amber Box. We must not go 
back in time and fashion farm programs that distort the market. The 
best option would be to eliminate the marketing loan and 
countercyclical payment altogether.
    Conservation investments are all green box investments. They allow 
our agriculture to protect the resources necessary to produce for a 
global table that will be at 9 billion by mid-century. While 
efficiencies may be gained in the way current programs are configured 
and administered, we should not lose sight of our long range vision of 
resource protection and enhancement. In addition, conservation 
compliance must remain a part of all Title I programs, and should be 
added crop insurance in Title XII.
    Finally, our international food aid programs are flawed and 
wasteful. Nearly \1/2\ of taxpayer money going to food aid are spent on 
shipping, procurement, and administrative costs. We need to shift more 
of our food aid into allowing for purchase of food closer to areas of 
food emergencies. U.S. farmers no longer face huge surpluses and 
chronic low prices. In fact, in the face of erratic weather, increasing 
population, and global instability, we can no longer afford to 
discourage production and disrupt world markets. I would encourage the 
committee to increase the local and regional purchase, and to decrease 
the damaging practice of monetization.
    Thank you so much for your dedication and hard work.
            Sincerely,

Jim & Lisa French,
[Redacted].
                                 ______
                                 
                        Comment of Rodney French
    Date Submitted: Friday, May 18, 2012, 9:22 p.m.
    City, State: Otsego, MI
    Occupation: Self-Employed Fire Protection
    Comment: Please take time to stop and listen even within your 
heart. Money is not the control of us. We, I count on my politician 
people to do what's right. Listen to us if you can't hear what's 
needed.
                                 ______
                                 
                         Comment of Lynne Fretz
    Date Submitted: Wednesday, May 09, 2012, 4:34 p.m.
    City, State: Rochester, NY
    Occupation: Educator
    Comment: Please protect funding for critical Federal nutrition 
programs, including the Supplemental Nutrition Assistance Program 
(SNAP) as you work to re-authorize the farm bill.
    Everyone in the U.S. should have enough food to eat. This is more 
important than the military budget. Thank you.
                                 ______
                                 
                         Comment of Susan Friar
    Date Submitted: Friday, May 18, 2012, 5:25 p.m.
    City, State: Hillsboro, OR
    Occupation: Environmental Educator
    Comment: I ask you to support the full endorsement of all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286), fully 
funding of conservation programs, such as the Conservation Stewardship 
Program, and making sure that enrollment in any new insurance subsidies 
are tied directly to compliance with conservation programs.
    The implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236). Maintaining the EQIP Organic 
Initiative. I have worked with farmers, USDA-NRCS, USFW Service, 
Audubon partnering with high school science classes in habitat 
restoration project that incorporate farms supporting some of the above 
programs. They are making a positive different and helping our urban 
youth understand the impact of using a minimal of pesticides and what 
can happen when farms partner with supporters to make a healthier 
environment.
                                 ______
                                 
                       Comment of Pamela Fridgen
    Date Submitted: Friday, May 18, 2012, 1:03 p.m.
    City, State: Scarborough, ME
    Occupation: Educational Technician
    Comment: The importance of local farms and sustainable practices is 
of the utmost importance. I would like to see a farm bill that reflects 
that. Help the small farms that really need it not the big Ag. 
operations that don't and utilize unsustainable practices.
                                 ______
                                 
                       Comment of Fiona Friedland
    Date Submitted: Friday, May 18, 2012, 1:59 p.m.
    City, State: San Francisco, CA
    Occupation: Part-Time Reception, Bookkeeper
    Comment: I want to know what I am putting in my mouth. It is time 
for the U.S. Government to get behind it's people and stop supporting 
big ag business. I want organics and non-GMO and I don't want to have 
to read every label before I buy something. In the past couple of years 
I have started to have digestive issues. I have to think about 
everything that goes into my body. It would be helpful if the 
government supported it's citizen's instead of big business. There is a 
growing health epidemic in the country. Think about it! Make the 
connection. You are what you eat!
                                 ______
                                 
                       Comment of Krystal Friedly
    Date Submitted: Friday, May 18, 2012, 5:06 p.m.
    City, State: Soldotna, AK
    Occupation: Homemaker/Mom
    Comment: I as a mom and a U.S citizen, believe that we have the 
right to eat good nutritious food. There is no reason that the people 
of our country should be fed food that has been altered. Food should be 
as its meant to be. We have so many rights and this should be at the 
top of that list.
                                 ______
                                 
                      Comment of Rebecca Friedman
    Date Submitted: Friday, May 18, 2012, 3:05 p.m.
    City, State: Asheville, NC
    Occupation: Caterer
    Comment: This is so overdue. Please don't spend another penny of my 
money on toxic food commodities produced by Big Ag. Level the playing 
field for our small organic farmers! Thank you.
                                 ______
                                 
                         Comment of Doug Friend
    Date Submitted: Friday, May 11, 2012, 4:21 p.m.
    City, State: Boston, MA
    Occupation: Self-Employed
    Comment: Small family farms are much more vested in their farms and 
communities then agra business. They are better stewards of the land 
and help to maintain productive open space. The food that is raised is 
done so with less intensive use of antibiotics and pesticides.
                                 ______
                                 
                      Comment of Christine Frisco
    Date Submitted: Friday, May 18, 2012, 11:12 p.m.
    City, State: Palo Alto, CA
    Occupation: Registered Nurse
    Comment: U.S. politicians are out of touch with the values of the 
American people, and corporate agribusiness has a stranglehold on our 
regulatory system and our political leaders. It's time for real reform! 
We need an Organic Farm Bill. I support:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

    U.S. food and agricultural policy must focus on adopting best 
agricultural practices that put the health of its citizens, the land, 
and the livelihood of farmers and farm workers over the interests of 
industrial agriculture lobbyists.
    I urge you to not cut funding to vital programs such as nutrition, 
conservation, and support for organic and sustainable agriculture.
    I urge you to create real reform and a healthy, organic future for 
Americans!
                                 ______
                                 
                       Comment of Charles Fritsch
    Date Submitted: Friday, May 18, 2012, 8:23 p.m.
    City, State: Newark, OH
    Producer/Non-producer: Producer
    Type: Fruits
    Size: 50-150 acres
    Comment: I have a small commercial organic apple orchard that is 
failing to produce a crop for 2 years and counting. Pollinators and 
their habitat are being destroyed by my surrounding corn and soybeans 
industrial farms. Those farms have pollinator habitat NFS and NRCS 
programs available to THEM but not to me because I don't raise ``row 
crops''. Worse, they are irresponsible in not taking advantage of the 
programs. Give these programs to us small farmers even though we are 
not a part of corporate America.
                                 ______
                                 
                         Comment of Ann Frodel
    Date Submitted: Saturday, May 19, 2012, 1:27 a.m.
    City, State: Poulsbo, WA
    Occupation: Retired
    Comment: After a lifetime of eating the standard American diet I 
have colon cancer. True, what I chose to eat was my own business, but 
since being diagnosed in 2000 I have come to realize that the more 
encouragement we can give the people who are growing wholesome, organic 
food (or would like to grow it), the better off we as a nation will be 
health wise and in multitudinous other ways as well. What better 
``educational'' stimulus for eating healthy food than the 
recommendations of our political leaders who are on record as 
supporting wholesome food products, uncontaminated by the chemicals our 
bodies do not know how to process. Please think about this as you 
peruse all the ``farm'' bills on your agendas. We'll all do better if 
we have access to healthy, pollution-free food.
    Thanks for listening.
                                 ______
                                 
                   Comment of Catherine J. Frompovich
    Date Submitted: Sunday, May 20, 2012, 4:48 p.m.
    City, State: Ambler, PA
    Occupation: Consumer Health Researcher & Journalist
    Comment: Organic farming must have the same financial support from 
Congress and the USA as Big Ag and its minions have in the way of farm 
subsidies. Genetically Modified crops must be sequestered from ruining 
natural heirloom crops and seeds that have come down throughout the 
evolutionary process. Food crops cannot be patented and owned. Will air 
be next? Food is an essential for life and living.
    Congress must re-evaluate the FDA's role in declaring GMO crops as 
the same as others, which is Not the case. Heirloom crops cannot 
produce their own pesticides as GMO bt crops can or resist glyphosate 
as Roundup Ready crops can.
    Because of the GMO fiasco, USA grown food crops are not welcome nor 
exported to many countries, especially the European Union. Let's get 
smart about USA agriculture and re-evaluate what's really needed to 
keep USA independent farmers growing healthy food to keep taxpayers 
healthy and well: organically grown food. Thank you!
                                 ______
                                 
                         Comment of Marian Fry
    Date Submitted: Monday, May 14, 2012, 2:09 p.m.
    City, State: Chestertown, MD
    Producer/Non-producer: Producer
    Type: Dairy, Field Crops, Livestock, Vegetables
    Size: 1,000+ acres
    Comment: The most basic form of homeland security is the ability of 
a nation to feed its people from its domestic agriculture. It is 
vitally important to keep agriculture viable in every state in the U.S. 
To this end, I support programs aiding young and beginning farmers, 
conservation programs aimed at clean water and productive farms, 
funding for organic research at the University level as an alternative 
to research funded by chemical companies, and farm to school programs 
to get local food into local schools.
            Thank you,

Marian Fry,
MD Sunrise Farm, LLC,
Fair Hill Farms, Inc.,
A Maryland farm family for five generations.
                                 ______
                                 
                         Comment of Mahala Frye
    Date Submitted: Friday, May 18, 2012, 1:55 p.m.
    City, State: Poulsbo, WA
    Occupation: Self-Employed Woodworker
    Comment: I am 62 years old have really started paying attention to 
what I eat and how it makes me feel. When I eat organic, non-GMO foods, 
raw milk products and other live foods, my body is much healthier and I 
function much better. I have to search these food out and read the fine 
print and pay a lot more, am I worth it? Yes! I urge you to do what you 
can to support the small farmers, organic food producers and cut 
subsidies to the large agribusinesses that are creating disease and 
ill-health in this country. By recreating healthy agriculture and 
healthy food products you will be saving a great deal on the sick care 
front. Please be working FOR me, my children and my grandchildren.
            Thank you,

Mahala Frye.
                                 ______
                                 
                      Comment of Christina Fugitt
    Date Submitted: Friday, May 18, 2012, 10:34 a.m.
    City, State: Springfield, MO
    Occupation: Export Sales
    Comment: End the subsidies for corn, sugar and wheat, indeed to any 
and all big industrial agriculture producers.
    Do help with subsidies or insurance or loans or all of these the 
small farmers and producers.
    Do fund government programs to feed the people in this country who 
need it. It is obvious that the government programs are not funded well 
enough because otherwise we would not need countless charities to do 
it.
                                 ______
                                 
                       Comment of Andrea Fuhrman
    Date Submitted: Friday, May 18, 2012, 4:58 p.m.
    City, State: Abilene, KS
    Occupation: Artist
    Comment: Please do the right thing. Feed the hungry. Grow organic 
and label GMO foods. Label dairy products so consumers know whether 
their milk etc. is free of growth hormones. Don't grow corn to make 
ethanol; instead find ways of using solar, wind and water power that 
does not pollute the Earth and does not contribute to global climate 
change!
                                 ______
                                 
                      Comment of Charles E. Fullen
    Date Submitted: Friday, May 18, 2012, 3:44 p.m.
    City, State: Jonesboro, AR
    Occupation: Management Consultant
    Comment: As a fifth generation resident of the Arkansas Delta, I am 
very concerned about the lack of program support for rural economic 
development in the 2012 Farm Bill. Many of our rural Delta communities 
have lost population; suffer from high unemployment and poverty. Many 
factories have left our communities sending thousands of jobs outside 
the country. It is critical to rebuild our local economies by helping 
existing businesses and beginning farmers and businessmen with programs 
providing technical assistance and affordable loan funds. Renewable 
energy and sustainable food production can help local communities 
become more sustainable while providing job opportunities.
    Many of the vital programs that help rural economic development 
have been greatly reduced or eliminated altogether. We need funding for 
these programs place back into the 2012 Farm Bill. A slight reduction 
in some of the subsidy programs already proposed can provide enough 
funding to continue these programs.
            Thanks,

Charles E. Fullen.
                                 ______
                                 
                        Comment of Chris Fuller
    Date Submitted: Wednesday, May 16, 2012, 1:33 p.m.
    City, State: Monterey, VA
    Occupation: Meat Processing
    Comment: The farm bill must include language that continues the 
recent efforts to create a more humane life for all farm animals and 
livestock. From birth to slaughter livestock should be treated with 
more respect than they are currently given in many large scale 
environments. Please consider making stricter regulations on the 
welfare and humane treatment of livestock.
                                 ______
                                 
                        Comment of Kathie Fuller
    Date Submitted: Friday, May 18, 2012, 9:48 a.m.
    City, State: Morrisonville, NY
    Occupation: Teacher
    Comment: First and foremost, the use of any antibiotics in feeds to 
animals should be outlawed. Second, subsidies for not growing should be 
outlawed. Protections should be put in place to maintain small, local 
farms with an emphasis on organics. The industrialization of the 
American food supply is tragic and wrong. Thank you for your time and 
consideration of these issues.
                                 ______
                                 
                       Comment of Victoria Fuller
    Date Submitted: Friday, May 18, 2012, 12:14 p.m.
    City, State: Del Valle, TX
    Occupation: Film Professional
    Comment: I am a 32 year old Diabetic. I live in the country and eat 
all organic foods. I hope to grow my own food one day, because I don't 
trust the government to protect us. The foods we serve ourselves and 
children are unsafe if they aren't organic. If we don't protect and 
find the growth of a healthier population it will be catastrophic. We 
must fight for the right to eat unpoisoned foods. I urge you to do your 
part in recognizing the importance of a healthier world without 
chemicals. It's killing us.
                                 ______
                                 
                        Comment of Susan Fulsome
    Date Submitted: Friday, May 18, 2012, 3:12 p.m.
    City, State: Salt Lake City, UT
    Occupation: Healthcare Consultant
    Comment: My son has owned and operated an organic farm for over 10 
years. It has been a very eye-opening experience to see what is 
possible when a farmer is a good steward of his land. It has also been 
disheartening to see how rigged the U.S. system is, in favor of 
conventional agriculture. This is not so much a matter of fairness, 
although it is that. It is a matter of investing in the wrong 
paradigm--conventional agriculture depletes the soil, making it harder 
every year to produce the same amount of food. It also encourages the 
use of toxic pesticides (dead bee colonies, anyone?) and overuse of 
petroleum-based fertilizers that create dead zones in our oceans. 
Organic and sustainable agriculture bypasses ALL of those issues, while 
producing food that is vastly higher in nutrients and is safer for the 
consumers.
    Please rethink farm policies with an eye to the overall health of 
the nation and our resources, Not just continuing to pork-barrel and 
rig corn prices. It is past time for a change that looks at long-term 
health and long-term consequences, rather than just the expedient.
                                 ______
                                 
                         Comment of Will Fulton
    Date Submitted: Friday, May 18, 2012, 1:55 p.m.
    City, State: Corvallis, OR
    Occupation: Soil Scientist
    Comment: The current agricultural policies of this country are 
absurdly inappropriate, if their intended purpose is to meet the 
nutritional needs of the citizenry. If their intended purpose is to 
stimulate the flow of cash from corporations to government officials, 
then they could not be more appropriate.
                                 ______
                                 
                        Comment of Sherman Fung
    Date Submitted: Wednesday, May 09, 2012, 8:00 p.m.
    City, State: Pasadena, CA
    Occupation: Retired
    Comment: The Farm bill should work for the good of as many sectors 
of America as possible. Already American producers enjoy the assistance 
the government offers them. There are others who need assistance to 
survive who enjoy no such assistance. The private sector helps as much 
as it can for the needy, but such assistance is not sufficient. Federal 
provisions should be structured in a way for everybody to address 
hunger.
                                 ______
                                 
                       Comment of Nan Funkhouser
    Date Submitted: Saturday, May 19, 2012, 10:56 a.m.
    City, State: Baldwin, KS
    Occupation: Self-Employed
    Comment: Organic food is imperative to our health. GMO food is 
poisoning the planet and must be stopped Now. Please support any and 
all organic efforts on the part of citizens.
                                 ______
                                 
                         Comment of Eric Furrow
    Date Submitted: Saturday, May 19, 2012, 8:20 a.m.
    City, State: Lisbon, ME
    Occupation: Oil Heat Technician
    Comment: Agriculture deserves all the funding it needs to find us 
clean, organic, farming practices. We do not need mass produced cheap 
slime . . . We need fresh vegetables not genetically engineered 
tomatoes the size of my house. We need animals raised or grass among 
other natural seasonal local wildlife, not corn and grains just because 
it makes them really fat very quickly.
                                 ______
                                 
                        Comment of Sally Gabriel
    Date Submitted: Sunday, May 20, 2012, 12:41 a.m.
    City, State: Sarasota, FL
    Occupation: Nutritionist & Health Coach
    Comment: I would like the farm bill to support small farmers who 
grow vegetables and fruits. People should be eating more fresh fruits 
and vegetables, grown locally, and yet we do nothing to help small 
local farmers. Big agribusinesses don't need government help; they're 
rich enough, not to mention they are not producing healthy food in most 
cases. Please support the small, local farmers.
                                 ______
                                 
                     Comment of Barbara Gabrielsen
    Date Submitted: Thursday, April 19, 2012, 10:14 p.m.
    City, State: North Salem, NY
    Occupation: Speech Language Pathologist
    Comment: I am concerned about the country's nutrition. I don't 
believe that the current farming system is focused on healthy food as 
much as they are focused on profit. Profit concerns are understandable, 
however I feel it is out of control. I work with many children on the 
autistic spectrum, have had several family members die from cancers, 
and believe that there is a correspondence between improved health and 
functioning and organic, and responsible food sources, and farming. I'm 
concerned about the neglect of the land we use to produce food from, so 
much poison has been put into our soil, and it is chaining into our 
populations health. The future of farming needs to be more responsible 
and refocus its goals of what successful farming is. It's time for 
responsibility! I am neither a producer or non producer, I have a small 
organic garden I use to supplement my families nutrition.
                                 ______
                                 
                       Comment of Patricia Gadsby
    Date Submitted: Friday, May 11, 2012, 10:41 a.m.
    City, State: New York, NY
    Occupation: Farmers' Market Organizer
    Comment: America needs a farm bill

  <bullet> that creates jobs, including jobs for returning veterans, 
        and spurs innovation and economic growth

  <bullet> that makes healthy local food available to all, especially 
        the young

  <bullet> that protects our ``natural capital'' (natural resources)

  <bullet> that invests in the next generation of farmers and 
        capitalizes on the eagerness of young people to farm by making 
        entry into farming affordable to them.

    The world is changing . . . America needs to adapt by thinking big 
in many small ways, instead of thinking small by disproportionately 
supporting big agri/food businesses that have created many problems, 
including a large obesity/health problem that will cost the country 
dearly.
                                 ______
                                 
                       Comment of William Gaffney
    Date Submitted: Friday, May 18, 2012, 6:05 p.m.
    City, State: Oakland, CA
    Occupation: Farm Equipment Sales
    Comment: We sell water conditioning equipment to help farmers end 
their reliance on petro chemicals and to help them grow organic food 
that doesn't poison the Earth, water, air, people, plants, and animals. 
Please help by passing this bill.
                                 ______
                                 
                        Comment of Yana Gafouri
    Date Submitted: Friday, May 18, 2012, 10:43 p.m.
    City, State: Corte Madera, CA
    Occupation: Housewife
    Comment: I am on disability due to end stage renal disease. I want 
to support local organic farms, because if America does not want to eat 
healthy clean foods, there will be more and more people like me on 
dialysis or other debilitation diseases. But I guess this is the goal 
of the big pharmaceutical companies, so that they can ``treat'' us with 
more chemicals, and stuff their pockets with cash.
                                 ______
                                 
                        Comment of Sandra Gagnon
    Date Submitted: Friday, May 18, 2012, 10:10 p.m.
    City, State: Manchester, NH
    Occupation: Homemaker
    Comment: Our farm bill must, most importantly, protect food 
security for all Americans.
    Second, we need to subsidize the cost of healthy foods such as 
fresh fruits and vegetables, not ingredients that go into making junk 
food.
    Also, farm bill subsidies should not go to wealthy ``farmers'' (who 
may never even see their farm) or big agribusiness, but to small family 
farms and to those who use sustainable, organic farming methods.
                                 ______
                                 
                      Comments of Theresa Gaignard
    Date Submitted: Friday, April 27, 2012, 11:54 a.m.
    City, State: West Roxbury, MA
    Occupation: Administrative Assistant
    Comment: I know little about the farm bill or its history or how it 
helps hungry people. I only know that we have a lot of hungry people 
that we need to help.
    Date Submitted: Wednesday, May 09, 2012, 2:57 p.m.
    Comment: I do not understand the farm bill and all its 
complexities. I do know that a strong nation has an obligation to 
protect its vulnerable. We cannot let our children and elderly starve. 
The Republicans have no heart and are certainly not Christian.
                                 ______
                                 
                        Comment of Brenda Gaines
    Date Submitted: Friday, May 11, 2012, 4:44 p.m.
    Producer/Non-producer: Producer
    Type: Forestry, Fruits, Nuts, Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: Pesticides are killing pollinators, contaminating water, 
destroying soil micro-organisms, poisoning people and our food. Support 
organic agriculture. Don't give our tax money to high fructose corn 
syrup makers, or animal abusing factory farms. Label GMOs.
                                 ______
                                 
                       Comment of Katrina Gaines
    Date Submitted: Friday, May 18, 2012, 3:50 p.m.
    City, State: Cove, OR
    Occupation: Library Tech 3
    Comment: I think that a farm bill that supports organic and 
sustainable farming is critical. I do not want to eat genetically 
modified foods. Without labeling to know if a product has GMOs, I stick 
with organic, because I know it hasn't been chemically engineered or 
modified, its real food. I think more money needs to be spent 
supporting organic farming and keep our food healthy. Support labeling, 
so people can make informed decisions in purchasing products. All the 
chemicals used in corporate farming are poisoning our bodies and the 
Earth. Support those that are trying to care for the land.
                                 ______
                                 
                      Comment of Louise Galarneau
    Date Submitted: Sunday, May 20, 2012, 9:01 p.m.
    City, State: Leicester, NC
    Comment: As a consumer, I am concerned with the many additives, 
GMO's, and pesticide residues in our food. As a citizen, I am concerned 
with the long and short term effects that continued and increasing 
pesticide and herbicide use will have on our land and both fresh and 
ocean water. As a realist, I am concerned for the small and beginning 
farmers, depending on the huge agribusinesses for an entire country's 
food supply is not safe. As a voter, I will be watching what happens 
with this bill. Do the right thing for your constituents and your 
country. Please support organic farming. My Grandchild is depending on 
you.
                                 ______
                                 
                         Comment of Robin Galas
    Date Submitted: Friday, May 18, 2012, 11:23 a.m.
    City, State: Hayward, CA
    Occupation: Garden & Nutrition Educator
    Comment: The current farm bill and versions the heavily subsidize 
corn and soy are costing us billions in health care costs! These 
commodities are turned into high fructose corn syrup, animal feed, and 
unhealthy foods (that contribute to our epidemic of obesity, diabetes, 
heart disease, etc. We have spent (and continue to spend) so much time 
as a nation squabbling over health care while doing very little to 
change the essence of the farm bill which impacts our nation's health. 
If you are going to offer subsidies, do it for broccoli and kale and 
apples!
                                 ______
                                 
                    Comment of Rebecca Gale-Gonzalez
    Date Submitted: Friday, May 18, 2012, 11:30 a.m.
    City, State: Flint, MI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I am independent grower with edible flint Co-op and am 
trying to produce a health product that doesn't pollute the environment 
or destroy DNA and contribute to disease and destruction of the 
environment. We need help to make this an affordable practice we must 
stop contributing to the likes of Monsanto and big agribusiness that is 
using unhealthy practices and reverse the trend we are on.
                                 ______
                                 
                          Comment of Ron Galen
    Date Submitted: Friday, May 18, 2012, 2:52 p.m.
    City, State: Richmond, CA
    Occupation: College Instructor
    Comment: I eat, therefore I live. If I eat badly, I live badly. I 
would rather eat well. Not luxuriously, just healthy. Please insure our 
food supply is healthy. Big Agra makes more profit if we eat badly. 
Unrestrained capitalism and doing the right thing are at odds. Please 
do the right thing.
                                 ______
                                 
                       Comment of Kevin Gallagher
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Garden City, NY
    Occupation: Videographer
    Comment: Please keep our food clear of pesticides and genetic 
modification. All foods should be clearly marked if they are modified, 
processed, sprayed, irradiated or genetically modified. Let the 
consumer decide. The market place will be regulated by our informed 
choice. Do not let the growers hide what they are doing. Your job is to 
protect we the people. Not the corporation!
                                 ______
                                 
                       Comment of Peggy Gallaher
    Date Submitted: Friday, May 18, 2012, 6:57 p.m.
    City, State: Medford, OR
    Occupation: Transportation
    Comment: Please protect the rights of family & small American 
farmers and those of us who depend on healthy, non-GMO, and healthy 
organic foods. As a parent, I beg that we have choices and full 
disclosure of how our foods are grown. As an American, I plead to you 
to truly represent the desires of those you represent.
                                 ______
                                 
                        Comment of Rob Gallinger
    Date Submitted: Wednesday, May 09, 2012, 2:40 p.m.
    City, State: Los Angeles, CA
    Occupation: Hair Stylist
    Comment: Protect Older Americans--House Agriculture Committee 
Please preserve programs and services that would be cut under the farm 
bill. Help us protect SNAP, TEFAP, and CSFP today! We must ensure 
hunger-relief programs remain protected so that seniors who worked 
their entire lives continue to have access to these vital programs.
                                 ______
                                 
                       Comment of Jason Gallivan
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Portland, OR
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Local, small sustainable farming is the only way we will 
be able to feed the world in the future. Agribusiness stands against 
this for two reasons, the first being profits at the cost of human 
suffering, and the second scarcity. Profits come from a direct 
correlation between scarcity and demand, artificial scarcity is causing 
starvation across the globe and even in the USA. We need to support 
small local farmers that are following sustainable practices, not using 
chemicals that destroy the environment and sell their produce within 
their state or surrounding areas. Genetically modified crops and seeds 
also have a detriment on the environment, animals and humans. They are 
not sustainable and chemical companies are after profits, again at the 
expense of human suffering. If the government is not going to step in 
and do something good for its people, then they should at least make 
the people able to do something for themselves. Farming should be 
allowed in all areas, even urban (roof tops/balconies) without 
penalties. Genetically modified foods need to be labeled as such and 
foods that are sprayed with chemicals should also be disclosed on the 
food packaging. Sprays are absorbed by the food and so become part of 
what you eat.
                                 ______
                                 
                         Comment of Paula Gallo
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: Fairfield, CT
    Occupation: Music Teacher/Vocalist
    Comment: Stop Monsanto and other companies from poisoning our food. 
Want a cure for cancer? An ounce of prevention is worth a pound of 
cure.
    I'm sure the people in our government eat organic and feed their 
children organic food. If this country is by the people and for the 
people. Get the corporations out of our food!
    If people want raw milk, they should have it. It's not illegal or 
political.
    Stop poisoning the animals and creating mutant genetically modified 
food. It is poisonous.
    When will it end? It's disgusting.
    Make it stop NOW.
                                 ______
                                 
                        Comment of Susan Gancher
    Date Submitted: Friday, May 18, 2012, 12:39 p.m.
    City, State: Vero Beach, FL
    Occupation: Jeweler
    Comment: I listen to many of your Town Hall Meetings by phone.
    Once again I find my representative wanting to take from the 
majority of people to give to business. It doesn't matter what kind of 
money business gives to you to run for office again if you are not 
supporting the people's needs you need to rethink your choice of work. 
You are taking entirely too many liberties with food health and safety, 
which indicates to me you are ignorant of the most recent research on 
these things. I've heard that an extraordinary amount of your time is 
spent on securing money for your next run for re-election. That 
deprives you of the time needed to learn from more than those giving 
you money. Please heed my words, I know you want to be a good 
representative of all your constituents.
                                 ______
                                 
                     Comment of Croitiene ganMoryn
    Date Submitted: Friday, May 18, 2012, 4:14 p.m.
    City, State: Ocala, FL
    Occupation: Retired
    Comment: Dear Congressman Stearns,

    When the Senate considers the next farm bill, I urge you to defend 
progress made in the 2008 Farm Bill and to protect critical programs 
that we need to help farmers transition to organic production. 
Specifically, I urge you to:

  <bullet> Include a Packer Ban: Allowing meat packers to own the 
        animals they slaughter reduces competition for livestock raised 
        by independent farmers and ranchers. A ban on the ownership of 
        livestock by meat packers would afford family farmers the 
        opportunity to remain independent and retain control over their 
        operations. I urge you to include S. 2141 in the farm bill.

  <bullet> Protect Organic Agriculture: The 2008 Farm Bill made 
        progress on giving organic agriculture a fair share of support. 
        In this farm bill, I urge you to protect the organic cost-share 
        program, amend the AFRI program to require 5 percent of funding 
        to go to the development of locally adapted, publicly available 
        seeds and breeds, and to keep language from the last farm bill 
        that would assure organic producers that they are not required 
        to pay unfair surcharges to access crop insurance.

  <bullet> Protect Country of Origin Labeling: Consumers started to get 
        this basic information about their food just a few years ago. 
        We need more information about where our food comes from, not 
        less, and this farm bill should not weaken the current 
        requirement for mandatory country of origin labeling for meat, 
        poultry, fruits and vegetables, seafood and nuts.

            Sincerest Regards,

Croitiene ganMoryn.
                                 ______
                                 
                         Comment of Dan Gannon
    Date Submitted: Sunday, May 20, 2012, 11:11 p.m.
    City, State: Sacramento, CA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    My name is Daniel Gannon, in my second year as owner of my own farm 
business. My entire income is earned on \1/2\ acre in organic 
production. The only real consideration I need is to be rid of farm 
subsidies in order that citizens may begin to appreciate the true cost 
of our food. Please stop giving money to farmers for participating in a 
failing system. Let the rest of us offer a future of hope for our food 
system and ag sector. The following letter is a form letter that makes 
great recommendations for trying to carve out a slice for new farmers 
in a way that will be effective for improving the odds of success in 
the current system. But first I ask you to consider again, eliminate 
farm subsidies. It is a system that keeps our nation insecure. Thank 
you for the opportunity to submit testimony to the House Committee on 
Agriculture on the next farm bill. My district representative is being 
copied on this testimony. I am a young farmer and I'd like to share my 
support for programs that help the next generation of growers build 
strong farm businesses. As it's estimated that 125,000 farmers will 
retire in the next 5 years, it's absolutely critical that farm bill 
programs help citizens get started in this challenging field. I ask 
that the Committee endorse all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Please consider including allowances for farmers 
        on leased land to take advantage of NRCS matching funds to make 
        improvements in resource management. Also, reaffirm the advance 
        payment option allowing beginning and socially disadvantaged 
        producers to receive an advance payment for the project's costs 
        for purchasing materials or contracting services, but increase 
        the limit on the advance payment from 30 percent to 50 percent 
        of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Dan Gannon,
[Redacted],
Sacramento, CA.
                                 ______
                                 
                        Comment of Peggy Gannon
    Date Submitted: Friday, May 18, 2012, 2:37 p.m.
    City, State: Palmyra, ME
    Occupation: Retired
    Comment: Corporate Ag is making millions producing food unfit to 
eat. They need No taxpayer support! What Americans desperately need is 
affordable organic food produced sustainably. Please listen to your 
constituents. We have no lobby . . . but we put you in office to do the 
right thing. Listen to your conscience. Support small organic farmers.
                                 ______
                                 
                        Comment of Thomas Gannon
    Date Submitted: Friday, May 18, 2012, 4:51 p.m.
    City, State: Montpelier, VA
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Vegetables
    Size: Less than 50 acres
    Comment: It is time to protect our food and stop the alterations 
and poisoning of our supply chain. It will get to a point where we will 
be unable to repair the damage. More and different poisons are 
introduced because the others fast becoming useless to eradicate bugs 
and weeds. The toxins are in our water and food. When will this madness 
stop?
                                 ______
                                 
                        Comments of Celin Garcia
    Date Submitted: May 18, 2012, 11:47 a.m.
    City, State: Norwalk, CT
    Occupation: Chef
    Comment: Rep. James Himes, Please help maintain the integrity of 
foods as it was intended.
    Date Submitted: Friday, May 18, 2012, 12:32 p.m.
    Comment: Please help pass The farm bill. You must protect the best 
interest of consumers and farmers and not Special Interest and 
Lobbyist. And do not cut funding for nutrition and vital programs. 
Thank you.

Celin Garcia.
Norwalk, CT.
                                 ______
                                 
                        Comment of Joshua Garcia
    Date Submitted: Friday, May 18, 2012, 1:37 p.m.
    City, State: Littleton, CO
    Occupation: Personal Fitness Coach
    Comment: Please help to create a collaborative and sustainable 
approach to our food system through the all empowering act of regard 
for all humanity. Not just for short term profits of a few.
                                 ______
                                 
                        Comment of John Gardiner
    Date Submitted: Friday, May 18, 2012, 10:35 p.m.
    City, State: Cave Junction, OR
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: Small farmers selling their local produce organically 
produced, are the past and future Homeland Food Security. We richly 
deserve some help to grow food and fiber that will maintain the health 
of the Nation, once it is weaned off the subsidized, unfairly-traded, 
industrial ag model that has created the obesity epidemic and all that 
goes with it.
                                 ______
                                 
                       Comment of Angela Gardner
    Date Submitted: Tuesday, March 27, 2012, 9:54 p.m.
    City, State: Little Rock, AR
    Producer/Non-producer: Producer
    Type: Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: Local and regional food systems help create jobs and spur 
economic growth in rural and urban communities. Will you support the 
Local Farms, Food, and Jobs Act to invest in this growing sector?

  <bullet> The future of family farming and ranching in America depends 
        upon ensuring that would-be new farmers have access to land, 
        capital, and markets. Will you support the Beginning Farmer and 
        Rancher Opportunity Act to help them?

  <bullet> Farmers depend on quality, cutting-edge research, such as 
        traditional plant breeding, to stay successful--how will the 
        farm bill invest in this crucial work?

  <bullet> Working lands conservation programs help farmers maintain 
        productivity while protecting our air, water, and soil. Will 
        you protect these programs from unfair funding cuts?

  <bullet> Local and regional agriculture is a major driver in the farm 
        economy. Producers are responding to skyrocketing demand for 
        local and regional food by increasing production, creating new 
        markets, and launching new businesses. Locally marketed foods 
        accounted for an estimated $4.8 billion in gross sales in 2008, 
        the number of farmers markets nationwide jumped 17 percent in 
        2011, and all 50 states now have farm-to-school programs.

    Despite these opportunities, significant infrastructure, marketing, 
and information barriers are limiting growth in local and regional 
agriculture.
Bill Basics
    The Local Farms, Food, and Jobs Act will drive economic growth by:

  <bullet> Creating economic opportunities for farmers and ranchers 
        through local and regional markets.

  <bullet> Improving processing and distribution infrastructure for 
        local and regional agriculture.

  <bullet> Expanding access to healthy food for consumers, including 
        underserved communities.

  <bullet> Providing research, training, and information that farm 
        entrepreneurs need to be successful.
Why It Matters
  <bullet> Small, mid-sized, and large farm businesses currently sell 
        through local markets and will benefit from investments in 
        local and regional agriculture.

  <bullet> Empirical research shows that expanding local agriculture in 
        a community can increase employment and income in that 
        community.

  <bullet> Every two jobs created at a farmers market supports an 
        additional job in another sector of the local economy.

  <bullet> The bill's investment in local and regional agriculture 
        amounts to less than \1/6\ of 1 percent of USDA's budget, yet 
        will address the needs of a large and growing sector of 
        American agriculture.

    For More Information: All Members are encouraged to co-sponsor the 
Local Farms, Food, and Jobs Act. Contact Claire Benjamin in Rep. 
Pingree's office at (202) 225-6116 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5e6c9c4ccd7c08be7c0cbcfc4c8cccbe5c8c4ccc98bcdcad0d6c08bc2cad3">[email&#160;protected]</a>, 
or Kristin Vennekotter in Sen. Brown's office at (202) 224-2315 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="410a33283235282f1e17242f2f242a2e353524330123332e362f6f32242f2035246f262e376f">[email&#160;protected]</a>
                                 ______
                                 
                        Comment of Arnie Gardner
    Date Submitted: Wednesday, May 16, 2012, 11:28 a.m.
    City, State: Portland, OR
    Occupation: Finance Director
    Comment: I am writing to support re-authorization and enhancement 
of the farm bill. These are tough times for millions of Americans, 
especially those unfortunate ones who must rely on SNAP benefits or 
emergency food to feed their families. I am Board Chair of the Oregon 
Food Bank and we see daily the growing hunger problem that is getting 
worse not better. This last year drops in Federal food commodities has 
resulted in a drop off of food to hungry people and also required 
tapping into dwindling Oregon Food Bank reserves to provide necessary 
help. Please fund TEFAP back to historical levels. Millions of 
Americans rely on food stamps (SNAP) to help them get by. It provides 
an efficient and effect way to provide food to hungry people, and also 
helps stimulate the economy as these are redeemed with local retailers. 
SNAP is the single biggest fighter of hunger we have in this country. 
Since the hunger problem is getting worse not better, it makes no sense 
to reduce these critical benefits to those Americans struggling to get 
through each day. I realize that pressure on Federal budgets exist, but 
cutting back on benefits to people living in poverty is not the answer.
            Sincerely,

Arnie Gardner,
Oregon Food Bank Board Chair.
                                 ______
                                 
                        Comment of Elias Gardner
    Date Submitted: Friday, May 18, 2012, 1:57 p.m.
    City, State: Middlesex, VT
    Occupation: Educator
    Comment: I believe that we need to focus on smaller scale, local, 
sustainable, diverse growing. These things are hard and cost more but 
will lead to a much more stable and healthy food system. Our current 
food system is controlled by giant corporations that don't care about 
our health only our bottom lines. We have succeeded in creating cheap 
food which is great in the short term but in the long run our cheap 
food is also not nutritious or healthy and will end up costing much 
more in our healthcare system.
                                 ______
                                 
                        Comment of Gail Gardner
    Date Submitted: Friday, May 18, 2012, 11:49 a.m.
    City, State: Cambridge, MA
    Occupation: Educator
    Comment: I'm tired of worrying about our food supply. Agribusiness 
has no interest in our health, only in its own profits. I eat as much 
organic food as possible, but why should I have to worry? Stop the 
subsidizing of big agriculture and support the farmers who are growing 
food that is actually good for us.
                                 ______
                                 
                      Comment of William Garlette
    Date Submitted: Friday, May 18, 2012, 9:47 a.m.
    City, State: Newport News, VA
    Occupation: Organic Master Gardener/Master Naturalist
    Comment: There is no more critical issue than the health of our 
Nation's citizens. The first line of action must be safe, nutritious, 
clean food. We must have a government that guarantees this and a farm 
bill that insures it.
                                 ______
                                 
                         Comment of Ellen Garms
    Date Submitted: Saturday, May 12, 2012, 6:13 p.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: We need a sustainable farm bill that encourages organ 
foods and healthy crops. There is no place in our food chain for 
toxins, animal abuse in factory farms or abusive seed producers like 
Monsanto. Please help make our food safe and healthy for this and 
future generations.
            Thank you.

Ellen Garms.
                                 ______
                                 
                    Comment of Prachi Garodia, M.D.
    Date Submitted: Saturday, May 19, 2012, 12:03 a.m.
    City, State: Hood River OR
    Occupation: M.D.
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Please do not cut any funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture.
    We need to have GMO labeled in food/products so we know what we are 
eating!
    Stop putting the land, soil and environment at greater risk by 
exposure to more chemicals/pesticide/GMO lobbied by big corps.
                                 ______
                                 
                       Comment of Grace Garrison
    Date Submitted: Friday, May 18, 2012, 10:19 a.m.
    City, State: Newbury, MA
    Occupation: Marketing and Events
    Comment: I support the Slow Foods movement and the efforts to 
effect change throughout our environmentally damaging food systems that 
threaten public health and community well-fare on a consistent basis. I 
know there is a better way and I want to be part of the solution. 
Please vote for farm bill changes that are Good, Clean and Fair.
                                 ______
                                 
                       Comment of Esther Garvett
    Date Submitted: Friday, May 18, 2012, 9:20 p.m.
    City, State: Miami, FL
    Occupation: Teacher
    Comment: I am concerned about humane, safe, and fair farming 
procedures. We use too many unsafe chemicals in farming. Some of these 
chemicals are used on crops and others are used in our animals. Animals 
are not treated humanely. This angers and disturbs me. It should 
disturb you as well. Our far workers are not treated fairly. Our large 
farms are not concerned with anything but profits. I would like to see 
a change in all of these areas. Please make sure that you vote to 
support these simple and humane concepts. Thank you.
                                 ______
                                 
                        Comment of Armando Garza
    Date Submitted: Friday, May 18, 2012, 10:37 p.m.
    City, State: Austin, TX
    Occupation: CSR for Speedy Stop Convenient Stores
    Comment: Food just does not taste like it should, especially the 
fruit! I buy organic when I can. I really believe that small farmers 
take pride in the food they harvest.
                                 ______
                                 
                     Comment of Jennifer Gasperini
    Date Submitted: Friday, May 18, 2012, 2:09 p.m.
    City, State: Woodbury, MN
    Occupation: Customer Service
    Comment: There is nothing more important than whole food! It is the 
basis of our health, our brains and in turn the health of our state. We 
must stop allowing corporations to poison our food for their financial 
gain. Organics are critical to the entire food chain. Please do the 
right thing for the people of Minnesota.

  <bullet> I support the full endorsement of all provisions of the 
        Local Foods, Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                          Comment of Paul Gast
    Date Submitted: Friday, May 18, 2012, 10:26 a.m.
    City, State: Seattle, WA
    Occupation: Physician
    Comment: What could me more important to our health than the food 
that we eat; water we drink and air that we breath. This is not about 
elitist `foodies' and gourmet. It is about eating real food that has 
been grown in a way that is healthy for the grower; the land and the 
rest of us! Please think of people; not businesses when you make your 
decisions!
                                 ______
                                 
                         Comment of Cheryl Gatz
    Date Submitted: Friday, May 18, 2012, 5:36 p.m.
    City, State: Atwater, CA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: We need to produce good quality food that is not full of 
growth enhancing drugs, pink slime and all the other crap that is 
allowed without consequences or policing.
                                 ______
                                 
                       Comment of Christine Gaus
    Date Submitted: Thursday, April 19, 2012, 10:45 a.m.
    City, State: Pittsburgh, PA
    Occupation: Community Services
    Comment: There is no function of government that is more important 
than the preservation of the health and welfare of our people. Through 
the anti-hunger programs such as SNAP, TEFAP, and CSFP, our government 
contributes in a highly tangible way to the health of low income 
families, children, and seniors. This governmental support unlocks 
millions of dollars in private funds, thousands of hours of volunteer 
help, and massive amounts of in-kind assistance dedicated to the 
alleviation of hunger and the promotion of good nutrition. These 
programs are critical to the well-being of our citizenry and merit the 
support of all Members of the House Committee on Agriculture. Through 
these programs, Americans are united in a fundamental public-private 
partnership to build stronger families and a stronger nation.
                                 ______
                                 
                       Comment of Roberto Gautier
    Date Submitted: Friday, May 18, 2012, 10:14 a.m.
    City, State: Brooklyn, NY
    Occupation: Teacher/Farm Tour Organizer
    Comment: My 88 year old mother receives Meals on Wheels.
    As a life-long cook, my mother and I talked about the dedication of 
the volunteers who deliver several times a week. That aspect is 
inspirational, but the actual food is so disappointing to all of us. 
We've grown up with the knowledge that food is also medicine. As a 
senior, my mother knows that the government is not going to provide 
organic food to those on the way out. She wishes that that were the 
case and wonders why Americans must be presented a diet of processed, 
highly-sprayed ``food.'' We spoke of the collapse of the bee hives that 
has been linked to a pesticide and shook our heads. We should be 
shaking our fists! We've all known for so long that food inspections 
are mostly out of government hands and in the hands of agribusiness.
    The Food Bill should be thought of as a national health bill. 
America is extremely unhealthy, but it doesn't have to be. A good farm 
bill should be crafted that assures a healthy food and fair conditions 
for the producers, especially the dwindling group of small farmers, who 
are aging rapidly.
    Large-scale agriculture is not only impersonal and reliant on cheap 
labor, but it holds no candle to what would be possible with a more 
scaled-down, environmentally-sustainable model.
    Real food is a right and, sadly, something that should not be left 
to entities that concentrate solely on the bottom line.
    Pass a Food Bill that will assure edible, healthy, affordable food 
for even seniors who are the way out of this world.
                                 ______
                                 
                       Comment of Jay Gawlikoski
    Date Submitted: Friday, May 11, 2012, 6:47 p.m.
    City, State: Madison, WI
    Occupation: Local Government
    Comment: Representative Baldwin,

    I would like to share my thoughts on food and agriculture as you 
consider the upcoming farm bill.
    First I only purchase organic, chemical-free, local food from 
farmers and producers that I can visit in person when at all possible. 
Everything else that I purchase is from our local food cooperative. I 
will not spend 1 cent on anything produced by a major food 
conglomerate and check out every product and its origin in detail. If 
there is any doubt, I refuse to participate.
    Much of what is for sale in regular grocery stores is not food and 
is really not fit for human consumption. We have a health and obesity 
crisis in the USA precisely because of what is being passed off as food 
to the public. And it would appear that decisions are usually made in 
the interest of a corporation rather than what is common sense.
    I do not want my tax dollars supporting any form of research or 
subsidies into any genetically modified plants or animals. On the 
contrary, I do expect that any such products would be boldly labeled as 
containing GMO if even the slightest bit of contamination exists.
    I would like to know that our meat supply is free of ``pink slime'' 
and that any corporations who try to sell such material be prosecuted 
for criminal fraud. I would also like to see the agencies responsible 
for ensuring such filth does not enter our food supply do their job. 
Obviously they have not. It is not good enough for me to see that the 
BPI Corporation is filing for bankruptcy. They should be prosecuted in 
criminal court and the agencies that approved such a product should be 
prosecuted as assisting that fraud. How else could this have happened. 
Maybe government agencies are too busy trying to scare the public with 
stories about mad cow disease, swine flu, bird flu and bombs in 
people's underwear. Well we don't believe it anymore. Government has 
lied and lost all credibility. FDA-approved = Who cares & So what.
    I would like the government to get out of our food supply 
altogether. A few months ago I wrote you about my expectation that raw 
milk should be freely available and that no government agency has any 
legitimate authority to come between a willing farmer and a willing 
client who wish to produce and eat what they choose.
    You responded with a letter about your concern for food safety. 
Well just where is that food safety that you speak of? When we have GMO 
products polluting the entire food supply, poisonous fluoride being 
added to the water, high fructose corn syrup contained in almost every 
product and pink slime in the hamburger, is that really food safety? I 
would argue no it is not. It is instead a farce. Government continues 
to harass, regulate and control our lives under the guise of safety and 
security. The people are waking up to this charade. Obviously votes are 
being cast in the opposite direction and the corporations' money are 
influencing that vote.
    It is high time that change happens. Let's see it start with this 
farm bill.
            Thank you,

Jay Gawlikoski,
Madison, WI.
                                 ______
                                 
                        Comment of Suzanne Geaci
    Date Submitted: Tuesday, May 15, 2012, 7:03 p.m.
    City, State: Eugene, OR
    Occupation: Retired
    Comment: I am writing to voice my support for the Supplemental 
Nutrition Assistance Program (SNAP) and The Emergency Food Assistance 
Program (TEFAP) to help prevent hunger in the U.S. These programs need 
full funding and support.
                                 ______
                                 
                       Comment of Peter Gebhardt
    Date Submitted: Sunday, May 20, 2012, 1:01 p.m.
    City, State: New London, WI
    Occupation: Operations Supervisor
    Comment: I have been working for the last 7 months at a large meat 
packing operation. The need for a Bill that gives the small producer a 
chance is desperately needed. I will not eat commercially produced meat 
products now after I have seen what goes into them and how they are 
made. People need to given a chance to eat food coming from an organic 
or Natural farm without Cargill, Tyson, Swift, etc having a hand in it.
                                 ______
                                 
                        Comment of Katrin Geist
    Date Submitted: Friday, May 18, 2012, 8:14 p.m.
    City, State: Missoula, MT
    Occupation: Biologist
    Comment: I fully support an organic farm bill to mutually benefit 
producers, consumers, the environment, and future generations. 
Conventional practices are not only toxic and unsustainable, but also 
cost millions in alleviating negative environmental effects later. 
Millions nobody wants to pay, let alone the industry causing that harm. 
And consumers are affected too. Pesticides and food additives bio-
accumulate in the body, leading to a decline in health and increased 
medical bills over time--only people may not link that to polluted 
soils, waterways, air, and the toxic foods they eat. I ask you to serve 
current and future generations by adopting an organic farm bill. Now.

    P.S.: I'm a mini-producer and grow veggies for my own use. The 
difference to supermarket foods is unbelievable. Organic is definitely 
the way.
                                 ______
                                 
                        Comment of LaVerne Gemar
    Date Submitted: Sunday, May 20, 2012, 12:00 a.m.
    City, State: Edmonds, WA
    Occupation: Registered Dietitian, Consultant Dietitian in Health 
Care Communities
    Comment: Please continue to support nutrition programs & family 
farms, end subsidies and limit funds to concentrated feed lots. Thank 
you!
                                 ______
                                 
                        Comment of Marya Gendron
    Date Submitted: Thursday, May 17, 2012, 1:06 p.m.
    City, State: San Lorenzo, NM
    Occupation: Community Organizer
    Comment: As a rural homesteader and advocate for a sane future for 
all, especially the generations to come, I see sustainable agriculture 
as the most crucial issue facing our country. This is a moral issue. It 
is essential that this year's farm bill recognize the importance of 
healthy food for all, jobs for small family-owned farmers, and the 
promotion of farming practices that are gentle on the land. There is 
sufficient research proving that small-scale organic farming makes more 
sense economically, ecologically, and also in terms of crop yields. 
Please make sure that the farm bill is Sane--meaning that it serves the 
interests of future generations, quality of life, and the Earth, rather 
than the interests of monoculture and agribusiness. You are in the 
position of power to make them on our behalf. Please have mercy on us 
and do the right thing as a conscientious and moral leader.
                                 ______
                                 
                        Comment of Karen Genest
    Date Submitted: Saturday, May 19, 2012, 5:46 a.m.
    City, State: Vancouver, WA
    Occupation: Teacher
    Comment: I am extremely concerned about the sources of our food in 
America. We need a farm bill that supports the healthy choices, healthy 
produce rather than the moneyed organizations that can buy their way 
into anything. Our organic farms and smaller family farms, are in need 
of the subsidies, not the huge farm conglomerates that constantly put 
our environment, including our land and waterways at risk.
    Please endorse all of the provisions of the Local Foods, Farms and 
Jobs Act (H.R. 3286) as well as the provisions of the Beginning Farmer 
and Rancher Opportunity Act (H.R. 3236). We also need to maintain the 
EQIP Organic Initiative.
    If we don't work to improve the source of our foods, we are 
condemning our children to a life of health issues, issues that could 
be avoided if we had healthy, non-toxic, non-GMO food to eat.
                                 ______
                                 
                       Comment of Merideth Genin
    Date Submitted: Friday, May 18, 2012, 5:28 p.m.
    City, State: New York, NY
    Occupation: Editor and Holistic Health Educator
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I most emphatically do not support the genetic modification of our 
food supply, which is proceeding with alarming speed. This not only 
contaminates the organic farms from which I purchase, it also creates 
new proteins in food which both humans and animals cannot digest, and 
which are causing a horrifying rise in allergies and gut disorders. 
Even more alarming is that intensive farming with GM seeds and the 
chemicals (including glyphosate) used with them is sterilizing our soil 
by killing soil-borne organisms.
                                 ______
                                 
                       Comment of Greg Gensheimer
    Date Submitted: Friday, May 18, 2012, 11:44 a.m.
    City, State: Vancouver, WA
    Occupation: Registered Nurse
    Comment: ``While the surgeon general is raising alarms over the 
epidemic of obesity, the president is signing farm bills designed to 
keep the river of cheap corn flowing, guaranteeing that the cheapest 
calories in the supermarket will continue to be the unhealthiest?''--
Michael Pollan
                                 ______
                                 
                        Comment of Carol George
    Date Submitted: Friday, May 18, 2012, 10:24 p.m.
    City, State: Santa Cruz, CA
    Occupation: Health Care Worker (Hospital Quality Director)
    Comment: e need to support organic farmers, small farmers and 
sustainable agriculture. GMO's do not fit into this picture and should 
not be promoted or even supported because of ecological and health 
threats (super weeds and dependence on pesticides and herbicides).
                                 ______
                                 
                        Comment of Chris George
    Date Submitted: Saturday, May 19, 2012, 3:44 a.m.
    City, State: Scottsdale, AZ
    Producer/Non-producer: Producer
    Type: Bioenergy, Fruits, Greenhouse/nursery, Poultry/poultry 
products, Specialty Crops
    Size: Less than 50 acres
    Comment: I am an urban farmer. I practice permaculture and 
sustainability and grow organically. I don't know all of the details of 
this bill, but please don't let it restrict me from providing my 
friends and neighbors clean, healthy, organic, nutrient dense food.
                                 ______
                                 
                        Comment of Darien George
    Date Submitted: Friday, May 18, 2012, 9:21 a.m.
    City, State: Fort Worth, TX
    Occupation: Consultant
    Comment: Its time to start supporting the right producers. Start 
supporting the sustainable producers, not the big farm subsidies that 
the U.S. has consistently given money to. Support farms that are 
friendly to the environment, not CAFO's. It's time to take politics and 
money out of the equation and do what is right for the future, not what 
is easiest or status quo.
                                 ______
                                 
                       Comment of Michael Georger
    Date Submitted: Sunday, April 22, 2012, 6:34 p.m.
    City, State: Oran, MO
    Producer/Non-producer: Producer
    Type: Field Crops, Specialty Crops
    Size: 301-500 acres
    Comment: Dear Honorable Members of Congress,

    I write to you with my concerns about what is being largely 
considered as being the major component and 'safety net' for production 
agriculture, and that is Crop Insurance. Personally, I am a big 
believer in insuring one's property and health in the event of a 
disaster, but I see the current crop insurance program as a failure 
that rewards inefficiency and poor production, management, and 
marketing practices. I see many large producers using crop insurance as 
a safeguard against frequent poor production practices and management, 
rather than using it for it's intended purpose to provide financial 
security when Mother Nature throws a weather event at us that we cannot 
control. I do not purchase crop insurance due to my personal 
`situation' where it would be nearly impossible to ever collect on it. 
Most of the soils I farm in Southeast Missouri are naturally fertile, 
have an adequate to plentiful supply of water during the growing 
season, and have had improvements made to remove excess water by use of 
tiles, land `grading', and surface drainage. What fields that are not 
subject to adequate subsurface water, benefit from irrigation 
practices. Through personal expenditures of time, and money, I have 
tried to ensure that my production (and subsequent income) has remained 
relatively stable.
    What bothers me the most about only using crop insurance as the 
safety net for production agriculture is the abuse that I have seen of 
it at taxpayer's expense. Last year (my area was part of the extensive 
and record flooding caused by excessive rains; and then a hot, summer 
drought), I saw producers not planting parts of their corn crop because 
they knew it was easier, and a guaranteed profit, to collect on 
Preventive Planting Insurance since the required planting date had 
passed. My family, as well as many other producers in the area without 
PPI, were continuing to plant our corn crops because we thought we 
could manage to make a respectable yield. Yes, our yields were off due 
to the growing conditions, but we took the risks, increased the 
management, and still made a profit. Those that purchased this type of 
insurance took no risks, produced nothing, yet made a profit with the 
help of taxpayers subsidizing the insurance programs. I have also seen 
some producers employ poor production practices with the knowing that 
if they aren't able to produce a sustaining income for their business 
and family through the production of a crop and then sound marketing of 
it, they will be able to make up the shortfalls through Crop Insurance 
or Revenue Insurance. I have seen poor planting practices, and heard of 
low levels of input (namely nitrogen and some weed control) 
applications by producers with the full knowledge that their yields 
will be low and they will collect on the insurance.
    How does this affect me you may ask? Besides being a taxpayer, this 
type of subsidized (insurance) behavior is allowing the largest farmers 
to get larger and have control over more ground, inflating rental rates 
on ground, and increasing the purchase price of land far past what it's 
production value is. I'm a young farmer (34 years old), with a younger 
brother who has recently joined our family business of about 1,500 
acres. We would like to expand our family farm and increase the 
acreage, but only want to do so if it is profitable in an ethical (both 
environmentally and socially) manner. My father farms with us as well, 
and has checked into crop insurance before, but we have never had 
growing conditions that we would have been able to collect on for the 
expense of our insurance premium. Many of the largest farms (5,000 or 
more acres) in the area are purchasing insurance to insure 
profitability; due to them bidding up rental rates on ground, and 
buying ground at rates much higher than what the production on those 
purchased acres can cover. Those large farms have profit margins so 
thin, they cannot risk any production or revenue losses due to them 
from over-extending themselves with management, labor, equipment, or 
weather/market collapse related losses. I know of smaller farmers that 
also collect in their crop insurance policies, but it is generally due 
to weather related losses (what the insurance was originally set up to 
cover). Being smaller acreage farmers, they are able to devote more 
time to the management of their family business, and generally have 
better production yields and marketing than those larger farms with 
similar growing conditions. Nationwide, what crop insurance seems to 
have done is make agricultural land valued more on the ``dollars per 
acre it can generate,'' rather than the ``profitability (based on 
production and marketing of produced crops) per acre;'' with the 
biggest beneficiaries being those who can control the most acres, while 
collecting the most often, while spending the least amount per acre 
with little regard to what it actually produces in yield or the price 
it is sold at. While I agree producers need a safe-guard against a 
weather event that may wipe them out financially, there needs to be 
some type of oversight to make sure the producer is not increasing that 
risk by over-paying for rent or the purchase of ground. Land is usually 
the single largest expense per acre of production, and farmers paying 
high rates for this fixed cost input are only increasing the risk of 
collecting on insurance to be profitable.
    By subsidizing crop insurance, the government is distorting the 
fair market value and rental rates of productive farmland across the 
U.S., with those areas of greatest weather-related losses, and those 
with large-acreage farmers who regularly collect on their insurance 
coverage being the greatest distorted.
    What I would like to see in the farm bill for production 
agriculture is a modified direct-payment type of program. As I am sure 
you are well aware, the direct-payment is one of the few areas of past 
safety-net programs that is WTO compliant. If payments were made at the 
same amount per acre across the U.S. into some type of individual 
revenue-loss account (similar to a Health Savings Account) with no 
regard to what crop is grown on that acre, or the past production 
history of that acre; and then only withdrawn during periods of severe 
losses it would decrease the distortion of land and rental values 
caused by subsidized crop insurance. In order to withdraw money from 
the account, producers would need to give up part of their following 
year's payment (say 10-20% for each year and increasing for consecutive 
years it is withdrawn) to insure that it is only used when most needed, 
and not abused. There should not be a limit on the amount that is 
collected by an individual (remember a producer collects it per acre 
regardless of the crop grown. A soybean, wheat, corn, cotton, etc. acre 
all receive the same amount of payment, and double-cropped acres do not 
receive double payments), and there should not be a limit allowed in 
the account. As a producer grows his/her business, they usually have 
greater risks and this increase in the account would help cover the 
increased risks in subsequent years. The government would only have to 
make an actual payment when a producer withdraws money from the 
account, helping reduce budgetary costs of the program. It would be a 
producer controlled safety-net that could be used when greatest needed, 
yet have controls to ensure that it does not have a `snow-ball' 
financial effect for future government budgets. The free-market system 
would determine what is produced based on price and profit, farmers 
would be free to produce whatever crop they choose, all crop growing 
regions of the country would be treated equally, farmers would have a 
safety-net type of account to withdraw from when losses occur, it would 
be WTO compliant, the true production value of the land would 
eventually return to determine the value of said land, and it would 
reward those producers most who withdraw from it the least.
    I would also recommend that the government significantly reduce or 
eliminate subsidies to the crop insurance program to eliminate 
distortions in land values and allow young farmers with fewer assets a 
greater chance of obtaining farmland (either through purchase or 
rental) to engage in production agriculture. Members of Congress, 
please allow crop insurance to work as it should like other insurance 
types. A grower is allowed to purchase it, but they have to pay at full 
expected cost of what it may cost the insurance provider. I am sure you 
would see a drop in insurance coverage, but it would cause an increase 
in producer management, a slowing in growth of extremely large (and 
often times inefficient) farms, and allow young and efficient producers 
to have the opportunity to get started or grow their business.
    On another note, please keep the grain marketing loan program the 
same as in the past. It is a program that costs the government nothing, 
but allows producers who need it to receive a loan on the bushels of 
produced grain (collateral) to help cash-flow their business to make 
payments on purchases, while waiting for market prices to hopefully 
improve.
    Thank you for taking the time to read and consider my comments.
            Sincerely,

Michael Georger: Corn, Soybean, Wheat, and Grain Sorghum producer.
                                 ______
                                 
                    Comment of Dr. Robert M. Geraci
    Date Submitted: Friday, May 18, 2012, 12:44 p.m.
    City, State: Nyack, NY
    Occupation: College Professor
    Comment: The farm bill needs to help local producers provide their 
communities with nutritious (not simply caloric) food--it must support 
real farmers (not international corporations) as they grow a healthy 
variety of vegetables and fruit.
    The farm bill has traditionally focused upon large scale production 
of specific crops (corn, soybean, etc.) under the work of agribusiness. 
Unfortunately, this comes at the expense of producing nutritious food 
for the public. it is outrageous that something like a cheeseburger 
(with all of its ingredients, shipping costs, distribution costs, and 
in-restaurant preparation costs) could be cheaper than a head of 
broccoli. it is time to end that.
    The farm bill needs to stop catering to huge agribusiness 
corporations and instead focus upon local farmers producing a healthy 
variety of food at an affordable price.
                                 ______
                                 
                       Comment of Cynthia Gerdes
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Portland, OR
    Occupation: Semi-Retired Music Teacher
    Comment: The health of our food, water and farm soil is our 
country's greatest treasure, and needs to be protected from threats 
from a number of factors--including pollutants, erosion and non-organic 
practices.
                                 ______
                                 
                      Comment of Laurie Gershgorn
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Cortland Manor, NY
    Occupation: Chef, Food Educator, Nutrition Consultant
    Comment: Time is of the essence to support traditional, hard 
working independent farmers, not associated with agricultural 
corporations, for the sake of a healthy and sustainable economy, people 
and environment. As someone that purchases 90% or more products from 
within the U.S., and has been supporting local and small organic farms 
for many, many years, we need legislation that continues to support a 
farm bill that changes convention and moves forward. Obesity can only 
be fought through education, real food winning over factory food. 
Supporting farmers who grow clean food without being indebted to agri-
corporations is the key to a progressive reform. Listen to the people, 
not the lobbyists, please.
                                 ______
                                 
                        Comment of E'Lonna Gesch
    Date Submitted: Friday, May 18, 2012, 10:39 p.m.
    City, State: Seward, NE
    Occupation: Retired
    Comment: Funding for the organic farmer is essential as that is my 
preference also purchasing natural organic health products is what I 
rely on. Please consider this while you are discussing a farm bill. 
Thank you.
                                 ______
                                 
                         Comment of Carol Geyer
    Date Submitted: Friday, May 18, 2012, 4:01 p.m.
    City, State: Pagosa Springs, CO
    Occupation: Retired RDH
    Comment: Organic for your children, grandchildren, and great 
grandchildren's healthy future . . . and mine too. Save our planet from 
the for-profit corporations.
                                 ______
                                 
                        Comment of Patsy Ghicks
    Date Submitted: Sunday, May 13, 2012, 3:12 p.m.
    City, State: Hilliard, OH
    Occupation: Retired
    Comment: Please as you look at the food and farm industry bill, be 
aware of how many people are depending on food subsidy and no the 
churches cannot feed the masses. Churches do what they can in giving 
food to those who aren't working/are falling through the cracks, so to 
speak, earning too much for food stamps but not enough to keep food on 
the table and a roof over the family's heads.
    And not all folk believe in ``church''; what are the non-believers 
to do when circumstances put them into this position of not being able 
to feed themselves or the family. And this is a free country of choice 
of religion, is it not?
    Pay attention to the masses and don't take away the life line. Keep 
healthy well balanced lunches in our schools, too.
                                 ______
                                 
                        Comment of Leslie Ghirla
    Date Submitted: Friday, May 18, 2012, 11:59 p.m.
    City, State: Nevada City, CA
    Occupation: Hairdresser
    Comment: Make labeling and disclosure of all GMO foods and foods 
manufactured with GMO products. Make it legal to BUY and produce raw 
milk.
    Let people feed themselves and grow their own food so that food I 
ate in the 1960's as a child becomes the norm again--that is vegetables 
grown without all the chemicals and GMO.
                                 ______
                                 
                      Comment of Victor Giammattei
    Date Submitted: Friday, May 18, 2012, 9:52 p.m.
    City, State: Santa Fe, NM
    Occupation: Writer
    Comment: I worked on the Idaho Oneplan 1999-2001 to help farmers 
become better stewards of the land. Anyone who looks closely at our 
food production system, knows that conventional agriculture has to move 
towards sustainability and best practices which will require less 
reliance on pesticides and excess use of chemical nutrients and minimum 
or no till practices. Our best models today for sustainability and 
production of healthy nutritious foods is the certified organic model 
in conjunction with bio-intensive farming as in the John Jeavons model. 
There is more than adequate data now to show that the latter methods 
can produce amounts equal to and even more than conventional farming 
per acre and do so using less energy inputs. In the final analysis the 
later, organic and bio-intensive farming is where our legislators, 
should place their emphasis and support by way of whatever subsidies 
are needed to support these models and help integrate these into 
conventional farming. Ideally, some day, conventional farming should be 
mostly organic bio-intensive farming.
                                 ______
                                 
                       Comment of Barbara Gibbon
    Date Submitted: Saturday, May 19, 2012, 10:49 a.m.
    City, State: Columbus, OH
    Occupation: Library Assistant
    Comment: Please stop all factory farming! The health of our nation 
and the emotional and physical health of the animals we farm are both 
extremely important. Factory farming is making both people and animals 
sicker, and more dependent on medicines. Organic, natural farming of 
animals, animal products, vegetables, and fruit are the healthiest 
options, and should be supported by the government! Please stop 
promoting and funding factory farms, and stop injecting fruits and 
vegetables with chemicals so they grow faster. These chemicals are 
absorbed into our bodies and cause harm. Thank you.
                                 ______
                                 
                         Comment of Jo Gibbons
    Date Submitted: Saturday, May 19, 2012, 1:18 a.m.
    City, State: Pleasanton, CA
    Occupation: Business Owner
    Comment: We need to have an Organic farm bill. Big agricultural 
business is not serving all of America's food needs. Organic farming is 
a very important component in our food supply. The lobbyists for the 
industrial agriculture business does not seem to be concerned with the 
health and welfare of America. They are more focused on profit rather 
than quality.
                                 ______
                                 
                        Comment of Rozanne Gibbs
    Date Submitted: Wednesday, May 09, 2012, 8:21 p.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: It is a crime that Americans are going hungry in this 
country. We have money for all these horrible dictator countries but 
not for our own people. We can pay for was but not food? I am very 
tired of my tax dollar going to support these countries. They need to 
take care of their own and we need to take care of our own. When all 
Americans can have access to food and health care then we can try to 
save the world!
                                 ______
                                 
                       Comment of Glen Gibellina
    Date Submitted: Friday, May 18, 2012, 2:33 p.m.
    City, State: Sarasota, FL
    Occupation: Consumer
    Comment: We need an Organic Farm Bill. We need to build a world for 
our children that makes access to healthy food a reality, protects the 
environment and puts farmers first, then we have to put our ideas for 
change forward to those who serve us in Washington. It's time for wise 
solutions America can no longer afford to continue to blindly stumble 
down the toxic and costly path that industrial agriculture has paved. I 
advocates for family farms and sustainable agriculture today, tomorrow 
and for our children's future.

        And God said, ``Let the Earth sprout vegetation, plants 
        yielding seed, and fruit trees bearing fruit in which is their 
        seed, each according to its kind, on the Earth.''--Genesis 1:11 
        ESV
    And it was so. FYI, that would be ``organic''.
                                 ______
                                 
                       Comment of Marshall Gibson
    Date Submitted: Sunday, May 20, 2012, 7:38 p.m.
    City, State: Indianapolis, IN
    Occupation: Retired
    Comment: When I was in 4th grade, we saw movies of farmers contour 
plowing to save soil from washing away. This is a healthier way to 
control runoff than chemicals that wash down rivers and kill plankton 
which apparently produces \1/2\ the oxygen we breathe. I would like to 
have my great and great-great grandchildren breathe clean air with 
plenty of oxygen. Consider agriculture science rather than agriculture 
profits in your deliberations so you and I can assure (we hope) oxygen 
for our progeny.
                                 ______
                                 
                       Comment of Michael Gibson
    Date Submitted: Friday, May 18, 2012, 1:26 p.m.
    City, State: Honokaa, HI
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: I think it is one of the deepest signs of our skewed 
priorities that the very food we eat has been hijacked, adulterated and 
diminished for corporate gain at the expense of the entire nation in 
countless ways. Please get this right!
                                 ______
                                 
                         Comment of Theo Giesy
    Date Submitted: Sunday, May 20, 2012, 3:37 p.m.
    City, State: Norfolk, VA
    Occupation: Homemaker
    Comment: Because we require safe health giving food, we need small 
and organic farmers to provide it. The products produced by 
agribusiness are not health giving food, they are contributing to the 
rise in obesity, diabetes, cancers and heart disease. Agribusiness also 
contributes to climate change, contamination of water and air. For 
these reasons I urge you to endorse all provisions of H.R. 3286, fully 
fund conservation programs, support all provisions of H.R. 3236, 
maintain EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Dawn Gifford
    Date Submitted: Saturday, May 19, 2012, 2:17 a.m.
    City, State: San Diego, CA
    Occupation: Nutritionist
    Comment: The only way we can improve the health of our nation and 
reduce staggering medical costs is to put our money where our Values 
are. If we value our health--and what is life without health--we should 
subsidize only those things that encourage health.
    GMO corn and soy made into livestock feed, corn syrup and processed 
food ingredients does Not encourage health. Miles and miles of heavily 
sprayed monocultures and CAFOs does Not encourage health of people or 
our precious soil, air and water.
    If we put our money where our Values are, we would subsidize 
farmers to produce nutritious whole foods in ways that have minimal 
impact on the environment, like fruits, vegetables, free-ranging meat 
and eggs, and hybrid non-GMO staple crops that don't require constant 
spraying--like we used to have 20 years ago.
    We would place local food security and healthy rural communities 
above grossly inefficient crop biofuels and commodity exports that put 
farmers here and in other countries into debt peonage or out of 
business.
    We would dump ``get big or get out'' ag policies that harm small 
and mid-size farmers and drive prices so low that farmers have to 
destroy their land over-cropping and cropping on marginal/sensitive 
lands to make a living.
    We would help farmers keep their land in agricultural use after 
they retire with creative sub-parceling to the next generation of 
farmers. We would incentivize and help farmers find less expensive, 
less environmentally detrimental ways to produce crops.
    We would put research dollars into agroecology and finding ways to 
farm with minimal use of fossil fuels and water, since our current rate 
of use will become increasingly unsustainable.
    We would place soil and water conservation and protection of bees 
above all else, because without all of them, we have no farming and no 
food.
    This is what the farm bill should focus on.
                                 ______
                                 
                       Comment of Richard Gifford
    Date Submitted: Friday, May 18, 2012, 1:37 p.m.
    City, State: Conway, AR
    Producer/Non-producer: Producer
    Type: Forestry, Livestock
    Size: 500-999 acres
    Comment: Diversity leads to security and health in almost all 
settings--from financial investments to social systems. In the American 
agricultural system a diversity of profitable producers benefits 
everyone. Please assure that smaller, value-scaled producers have an 
opportunity to succeed without anti-competitive funding disadvantages 
imposed by comodified agribusiness.

    (1) I believe that the Local Foods, Farms and Jobs Act (H.R. 
        3286)economically benefits Americans and value-scaled producers 
        like myself and should be passed.

    (2) The Conservation Stewardship Program is valuable to Americans 
        by assuring that productive lands remain productive for future 
        generations without dependence upon synthetic inputs. Please 
        continue it, assuring that potential new insurance subsidies 
        are tied to compliance with conservation programs.

    (3) The Beginning Farmer and Rancher Opportunity Act (H.R. 
        3236)assures healthy diversity on the production side of 
        American agriculture. I hope that all of its provisions will be 
        implemented.

    (4) Participation in the EQIP program has made our farm more 
        efficient, profitable, and an economic asset to the region. 
        Please continue to fund it fully for the benefit of American 
        producers.
                                 ______
                                 
                      Comment of Bernadette Giglio
    Date Submitted: Thursday, May 17, 2012, 12:09 p.m.
    City, State: Altadena, CA
    Occupation: Fitness Form Model
    Comment: We need subsidies for organic farmers . . . not big ag and 
biotech which is causing soil erosion and killing our mother Earth! 
Enough is enough . . . stand up and stop this insanity! It is time to 
get back to knowing where our food source is coming from, help 
American's once again rise and be a great nation and grow our own whole 
organic food in its natural state! Subsidize programs on organic edible 
landscaping. Subsidize organic farmers and tax the garbage makers, like 
Pepsi Co., Coca Cola, ConAgra, Kraft, Tyson, Fosters, Taco Bell, 
McDonald's and the Posion they all make for the Real Cost it is causing 
to the Health of all American's and the COST to our Planet!
                                 ______
                                 
                       Comment of Marsha Gilbert
    Date Submitted: Friday, May 18, 2012, 2:45 p.m.
    City, State: Hope, ID
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Can you not for once have the courage to override big 
agribusiness and consider the American people in your decision-making. 
You have a family that has to eat adulterated foods with hidden 
ingredients. These foods will impair the health of your children and 
grandchildren as well as the adults in your family. If we are to 
control health-care spending, we will also have to provide healthy food 
to Americans. If you cannot stand up to the pressures of corporations 
over the well-being of our children--the future of America--then step 
down as a Legislator. You do not deserve the honor of serving this 
Country.
                                 ______
                                 
                       Comment of Valerie Gilbert
    Date Submitted: Thursday, May 17, 2012, 6:07 p.m.
    City, State: New York, NY
    Occupation: Actress/Writer
    Comment: I want a clean, green, organic, fair trade, humanely 
certified, non-GMO world? Got it? No Monsanto! No crazy agribusiness 
CAFO factory farming BS. No more! Time for people, We The People to 
claim our land and heritage and planet back. 2012 is here, and that's 
exactly what it means.
                                 ______
                                 
                      Comment of Claire Gilchrist
    Date Submitted: Friday, May 18, 2012, 10:15 a.m.
    City, State: New York, NY
    Occupation: Lawyer
    Comment: Please end subsidies to large farms and replace them with 
loophole-free agriculture risk coverage. Additionally, implement a cap 
on crop insurance premium subsidies.
    Thank you.
                                 ______
                                 
                         Comment of L.F.J. Gill
    Date Submitted: Friday, May 18, 2012, 4:42 p.m.
    City, State: Southborough, MA
    Occupation: Retired
    Comment: It is time--critically so--so start supporting small, 
clean, organic, humane farming. The huge factory farms and 
``agribusiness'' have wreaked plenty of havoc, on our food supply and 
our environment. Maybe they meant well at the beginning, but it has 
gotten way out of hand--soil depletion, toxins in our foods, and now 
tampering with the genetic code of plants--and even taking out 
*patents* on seeds! The FDA has been taking its cues from agribusiness 
and chemical companies--even hired an ex-Monsanto lawyer to write the 
rules for Monsanto and their ilk! Does this need to be thought about?
    Please, stop subsidizing factory farming, filthy and inhumane 
feedlots, contaminated soil, damaged food supply, sabotage of the seeds 
of life, the drastic reduction of genetic diversity in the seeds 
supply, and the killing off of wildlife by the makers of Agent Orange 
and DDT--who now have a free hand in deciding the fate of our food 
supply. It would be unbelievable if it were science fiction. That it is 
the reality is beyond terrifying. If you will not do something about 
it, Now, who can? Thank you.

L.F.J. Gill.
                                 ______
                                 
                     Comment of J. David Gillanders
    Date Submitted: Friday, May 18, 2012, 3:26 p.m.
    City, State: State University, AR
    Occupation: Retired Engineering Professor
    Comment: To improve the health of our country the government must 
stop subsiding unhealthy foods and start subsidizing healthy foods.
    The current farm subsidies make unhealthy fast foods the only foods 
many poor people can afford to eat. Start subsidizing healthy fruits 
and vegetables.
    The subsidies on feed grains that are used to produce unhealthy 
high fat meats that clog our arteries are creating major health 
problems and therefore increasing health care costs.
    Start subsidizing healthy food and health care costs will go down.
                                 ______
                                 
                        Comment of Bob Gillespie
    Date Submitted: Thursday, May 17, 2012, 2:51 p.m.
    City, State: Wenatchee, WA
    Occupation: Teacher Sustainable/Organic Agriculture and Natural 
Resources
    Comment: Protect the farm bill that provides opportunities for 
beginning farmers, incentives for farmers to produce and market food 
locally, and programs that encourage farmers to develop habitat for 
wildlife and pollinators.
                                 ______
                                 
                        Comment of Erin Gillett
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: Menlo Park, CA
    Occupation: Teacher--Mother--Graphic Designer
    Comment: Stop selling your citizens short in order to produce in 
the stock market! Enough! Do not let Greed dictate the future of our 
children's health and our food system. Enough!
    Do not let Greed validate the demise of our planet and it's water 
supply.
    Say it with me, ``Enough!''
                                 ______
                                 
                      Comment of Christina Gilman
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Seattle, WA
    Occupation: Freelance Web Developer, Mom, Eater
    Comment: We need a fair and healthy farm bill, one that protects 
the soil and water so critical to farming And provides healthy food for 
our citizens. These should be the priority Above that of ensuring large 
profit margins for agribusiness.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I care deeply about the quality of food I eat and feed to my 
family. I also care deeply that we as a nation steward our resources 
wisely so there is food for the future, for everyone not just those who 
got rich at the expense of our natural resources.
                                 ______
                                 
  Submitted Statement by Steve Gilman, Policy Coordinator, Northeast 
                      Organic Farming Association
    Chairman Lucas, Ranking Member Peterson, Members of the Committee:

    Thank you for this opportunity to submit this testimony on behalf 
of the member organizations of the Northeast Organic Farming 
Association, Interstate Council (NOFA-IC).
    I'm here today representing the seven state chapters of the 
Northeast Organic Farming Association--NOFA-NY, NOFA-VT, NOFA-NH, NOFA-
RI, NOFA/MASS, CT-NOFA and NOFA-NJ. Begun in 1971, NOFA is one of the 
oldest organic farming organizations in the United States. NOFA members 
include a wide range of farmers, gardeners, landscape professionals, 
homesteaders and consumers working together to promote healthy food, 
organic farming practices, food system fairness and a cleaner 
environment through education and policy initiatives.
    Welcome to upstate New York and the rural splendor of the 
Adirondacks! While there's been public grumbling about hosting a farm 
bill field hearing on short notice in a far off place that's hard to 
get to in a region not known for its farmland--we're glad you're here.

    Local Farms As An Important Economic Engine

    The fact is--this mountainous, thin-soiled area with a very short 
growing season is home to numerous appropriately scaled family farms, 
produce growers, greenhouses, dairies, livestock operations and 
orchards--supplying local restaurants, groceries, Farmers Markets, 
roadside stands, Community Supported Agriculture projects as well as 
Supplemental Nutrition Assistance Program (SNAP) recipients that 
generates a significant year round contribution to jobs and the 
region's economy. It's clear that the economic benefits of producing 
food for local markets has tangible effects on job creation. Economic 
Research Service data shows that for every $1 million in sales of local 
foods, 13 jobs are created compared to 7.5 jobs in production 
agriculture. Multiply this economic driver across our entire Northeast 
region, home to some 40% of this nation's consumers, and it's easy to 
see that local agriculture plays a substantial role in the overall 
economy.
    This is not just a regional issue, however. We urge the Agriculture 
Committee to strongly support a number of farm bill initiatives that 
are instrumental in promoting the growth and viability of local family 
farms all across the country. In this time of intense negotiations over 
budget cuts its hard to find more bang for the buck than USDA's 
exemplary low cost Know Your Farmer, Know Your Food initiative, for 
example. This provides a real service for farmers and citizens trying 
to negotiate the Federal labyrinth by delivering public access to 
conservation, farm credit, rural economic development and marketing 
programs that were authorized by Congress. This USDA initiative is 
increasing the farming opportunities for growers looking to capture 
these expanding new markets and helping community agriculture scale up 
their local and regional food systems, create jobs and strengthen their 
rural economies.
    The low cost Farmers Market Promotion Program also produces many 
benefits for community agriculture. However, specialty crop and organic 
producers who attempt to scale up from direct producer-to-consumer 
markets are encountering huge barriers in selling products to local 
institutional and retail outlets. There is an urgent need for crop 
insurance products and food safety farmer training programs to serve 
this dynamic sector of agriculture. Therefore, we also advocate strong 
support for the comprehensive provisions outlined in the Local Farm, 
Food and Jobs Act and the Beginning Farmer and Rancher Opportunity Act, 
which are aimed at inclusion in the 2012 Farm Bill and have the support 
of hundreds of farm, food, and rural organizations nationwide.

    Importance of Conservation Programs

    As is true all across America, maintaining environmental quality is 
the absolute lifeblood of the Adirondack region. In addition to 
providing a healthy quality of life for all citizens, outdoor 
recreation enthusiasts have a special relationship with the out-of-
doors. Teeming with wildlife and awesome vistas, this area's economy is 
built on travelers from around the world who come to hike, rock climb, 
ski, swim, fish, hunt, boat, bird watch, etc. Conservation of resources 
is paramount. Agriculture, with all its ecological impacts, must do its 
part--that's why the farm bill conservation programs should be 
augmented instead of suffering ruinous cuts. It is only fair that 
public agricultural subsidy and crop insurance dollars should be 
accompanied with mandated participation in conservation programs.

    Competition Title
    We urge support of a strong, comprehensive and improved competition 
title in the next farm bill by placing a moratorium on mergers of large 
food and agricultural companies and reviewing prior mergers for 
antitrust issues; banning meatpackers from owning livestock, which can 
be used to manipulate the market; requiring fully transparent contracts 
for farmers; supporting the GIPSA rule and investigating and enforcing 
antitrust laws across the food system and protecting Mandatory Country-
of-Origin Labeling (COOL).

    Support for the Organic Sector

    We are disappointed that no organic farmers have been invited to 
testify at this hearing, even though organic is such an important and 
growing part of the New York State agricultural economy and also 
because organic has been so vulnerable to cutbacks in this farm bill 
cycle. The 2012 Farm Bill represents an opportunity for the Agriculture 
Committee to honor consumer food preferences and fully support organic 
agriculture initiatives. For over a decade now consumer demand has 
continued to fuel the exponential growth of the organic sector, which 
even in this time of recession remains the fastest-growing segment in 
the food economy, by far.
    Currently, however, domestic demand for organic food and beverages 
exceeds domestic production--and this represents a tremendous 
opportunity for U.S. farmers and businesses. Organic agriculture is 
open to all farmers and represents a practical opportunity for growers 
of all scales who wish to transition to organic farming methods and 
access these growing markets. In order to meet projected market demand 
with domestic production by 2015, we will need 42,000 organic farmers. 
With just a modest investment in USDA research, marketing, and farmer 
assistance programs to support the U.S. organic sector, we can close 
the gap and expand this critical job base here at home.

    To foster that growth, we urge a continued and expanded Federal 
investment in the following USDA programs:

    National Organic Program (NOP)

    In order for organic to remain a feasible option for farmers and 
consumers alike there is Federal responsibility through USDA to insure 
that organic standards remain viable and keep pace with the growth in 
the sector through adequate funding of the National Organic Program 
(NOP). Charged with the promulgation and enforcement of organic 
standards, the NOP is also responsible for accrediting certifiers, 
developing equivalency agreements, handling complaints--and ensuring 
the integrity of the organic seal. These are essential functions for 
the survival and transparent growth of the organic sector. In order for 
the NOP to be able to grow along with the organic sector it requires a 
technology upgrade to better provide domestic and international 
oversight as well as transparency and streamlining of systems, data, 
and information.

    NOP should receive a one-time infusion of $5 million in mandatory 
funds for the technology upgrade, and then should be authorized to 
receive appropriations increasing at a rate of 20 percent annually 
beginning with $10 million in FY 2013.

    National Organic Certification Cost-Share Program (NOCCSP)

    This program is essential in helping small and medium-size 
businesses become certified as organic, a critical step if we are to 
meet growing consumer demand for organic products and maintain a scale 
diversity in organic operations. Unlike bail outs and direct payment 
subsidies organic farmers are simply asking to be put in a position to 
compete and succeed in new markets.
    The annual process of organic certification is a necessary step for 
ensuring that all organic operations meet stringent organic standards, 
in order to ensure the integrity of the USDA organic seal and meet 
consumer expectations. But certification costs can be prohibitive for 
small, mid-sized, and beginning farmer businesses. This cost-share 
program enables certified organic farmers and handlers to offset the 
costs of certification by providing a small reimbursement of currently 
no more than $750 per year, capped at 75% of total certification costs.

    NOCCSP should be funded at $30 million in total mandatory funding 
over the 5 year life of the next farm bill.

    Public Plant and Animal Breeding

    One of the basic building blocks of any successful agricultural 
system, conventional or organic, is farmer access to seeds that are 
well adapted to local soils and climates. Farmers nationwide have fewer 
choices of seeds to meet changing environmental stresses and consumer 
demands. Often, the seeds that are available are not bred to address 
local soil and climate conditions, placing entire regions at a 
competitive disadvantage. The Federal Government has largely stopped 
funding classical breeding efforts at state land-grant institutions to 
develop public cultivars, and has largely shifted agricultural 
germplasm research toward only patented varieties that prevent farmers 
from saving seeds. The problem is particularly acute for organic 
farmers whose farming systems demand seeds that are well adapted to 
their local conditions. The 2008 Farm Bill addressed this growing 
crisis by requiring USDA to make classical plant and animal breeding a 
priority with the Agriculture and Food Research Initiative (AFRI), but 
USDA has not complied with that Congressional mandate.

    The next farm bill should require a set aside of ten percent of 
annual AFRI funding to be used for classical breeding efforts to ensure 
meaningful public seed variety choices for farmers.

    Organic Agriculture Research and Extension Initiative (OREI)

    This program is USDA's flagship competitive research and extension 
grants program dedicated to organic agriculture. Unique in its scope 
and function, OREI funds research and extension projects to help meet 
the production, marketing, and policy needs of the growing organic 
industry. The program is very competitive and each year funds only a 
small percentage of eligible proposals and comes no where near meeting 
the growing sector's research and extension needs.

    OREI should be funded at $30 million in mandatory funds annually, 
and retain its authorization for appropriation.

    Organic Production and Market Data Initiatives (ODI)

    This is a small but significant multi-agency initiative that 
ensures that USDA collects organic statistics, conducts organic price 
reporting, and releases organic economic reports. The Economic Research 
Service, the National Agricultural Statistics Service, and the 
Agricultural Marketing Service all collaborate on this data collection 
initiative. Access to segregated organic data is critical to help 
organic farmers and handlers make wise business decisions, and to 
policymakers needing to assess trends in agriculture.

    ODI should receive $5 million in mandatory funding over the life of 
the next farm bill, and retain its authorization for appropriations.

    Environmental Quality Incentives Program (EQIP) and the 
Conservation Stewardship Program (CSP)

    The 2008 Farm Bill included important provisions for organic 
farmers in recognition of the historical lack of participation and 
conservation benefits of these systems. However, both programs are in 
need of reform to address the unique needs of organic farming systems.

    Issues such as the unfamiliarity of NRCS staff with organic 
systems, overlapping planning requirements with the National Organic 
Program, and lack of adequate planning assistance should be addressed 
in the next farm bill.

    Address the Lack of Risk Management Tools for Organic Producers

    Despite mandates in the 2008 Farm Bill, USDA currently does not 
provide appropriate risk management tools for organic producers. The 
agency charges an unjustified surcharge to organic farmers who 
participate in Federal Crop Insurance Program, and for most organic 
crops, does not pay organic farmers at the organic price when they 
experience a loss. In addition, the agency does not provide appropriate 
tools for diversified farmers. The 2008 Farm Bill required USDA to 
remove the unjustified organic crop insurance surcharge and to provide 
organic price elections. While USDA has started the process for some 
organic crops, it has fallen far short of the 2008 Farm Bill mandates 
in that regard.

    The next farm bill must fully remove these unnecessary and 
unjustified disincentives to organic farmer use of USDA risk management 
tools.

    Thank you.
            Sincerely,



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
Steve Gilman,
NOFA-IC Policy Coordinator.
                                 ______
                                 
                        Comment of Jamie Gilmore
    Date Submitted: Saturday, May 19, 2012, 6:07 p.m.
    City, State: Naalehu, HI
    Occupation: Self-Employed
    Comment:

  <bullet> Support for small farmers & farms.

  <bullet> Different regulations for small farms & large scale farms.

  <bullet> Support for farmers markets & direct selling by the farmer 
        to the consumer.

  <bullet> Support for organics.

  <bullet> Upholding the organic standards . . . keeping ``organic'' 
        free of genetically modified ingredients preservatives & 
        chemicals.
                                 ______
                                 
                        Comment of David Gilroy
    Date Submitted: Friday, May 18, 2012, 7:13 p.m.
    City, State: East Granby, CT
    Occupation: Psychotherapist
    Comment: As a person who enjoys the right to healthy eating, I want 
to invite you to think in much the same way we once did with student 
loans. We can call it The National Defense Organic Farms Bill.
                                 ______
                                 
                        Comment of Erinn Gilson
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Jacksonville, FL
    Occupation: Professor
    Comment: I urge members of the Committee on Agriculture to refuse 
to continue to allow the farm bill to include the excessive subsidies 
for commodity agriculture. It has become increasingly clear to U.S. 
citizens that the status quo for agriculture in the United States must 
change. The farm bill should support food that is healthy and safe for 
families and the environment (the air, water, and soil) in which those 
families live. Subsidizing the production of corn and soy, which are 
transformed into nutritionally empty processed foods, is a failure of 
policy. It only serves to perpetuate a food system that makes 
unhealthy, processed food cheap and plentiful, and so harms the health 
of American people. Changes to the farm bill should foster the growth 
of local producers and jobs in local food business, and continue to 
support the organic production that is healthier for people and, in 
overall terms, more efficient.
    Instead, I urge the committee members to:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                      Comment of Michael Gimmeson
    Date Submitted: Friday, May 18, 2012, 11:08 p.m.
    City, State: Powell, WY
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Field Crops, Livestock
    Size: 500-999 acres
    Comment: Please stop the insanity! Everyone knows that you're paid 
off by the big ag corporations like Monsanto. How can you live with 
yourself knowing that you are poisoning people, all in the name of 
money? One day, justice will be served and you will be accountable for 
the terrible decisions you have made.
    Remember, you can't eat money and you can't buy your way out of a 
lie.
                                 ______
                                 
  Comment of Anne Ginn; on behalf of Susan Ellis Goodell, President & 
                      CEO, Forgotten Harvest, Inc.
    Date Submitted: Saturday, May 19, 2012, 8:31 a.m.
    City, State: Oak Park, MI
    Occupation: Food Rescue Organization/Emergency Food Provider
    Comment:

U.S. House of Representatives
Committee on Agriculture

Susan Ellis Goodell,
President & CEO.

Statement submitted by Forgotten Harvest, Inc.

Statement submitted on May 19, 2012

    Forgotten Harvest is honored to submit comments to the U.S. House 
of Representatives Committee on Agriculture.
    As the nation's largest food rescue organization, Forgotten Harvest 
rescued over 23 million pounds of surplus nutritious food last year and 
is on track to rescue over 42 pounds this year--equivalent to about 42 
million meals. This food is distributed free-of-charge to people facing 
hunger in metro Detroit.
    Principle: Eating healthy food is a basic human right. The 
nutritious food raised, processed, and sold in our nation and exported 
to other nations provides a critical engine for our nation's and 
Michigan's economy. The agricultural sector is one of the most 
important contributors to the nation's jobs, recovery from the recent 
deep recession, and future growth. The nutritious food from America's 
agricultural sector feeds people. Without nutritious food, there is no 
life. For our nation's vulnerable population, however, accessing this 
healthy food often is a significant challenge.
    Forgotten Harvest urges the Committee to retain the fundamental 
principle that eating healthy food is a basic human right, not a 
privilege. A nutritious diet for the nation's population is critical 
for America's future. Eating a healthy diet enables children's bodies 
and brains to grow normally so that our nation's children may live 
productive, contributing, economically viable adult lives. Educators 
observe that hungry children are inattentive, fail to socialize 
effectively, and often drop-out of school, which results in life-long 
limits on earning capacity. Adults, particularly seniors, need a 
nutritious diet for healthy living. A poor diet contributes to the risk 
of debilitating and costly diseases, including heart and kidney 
disease, diabetes, and related complications. While the correlation 
between income and obesity is complex, a nutritious diet enables people 
to maintain a healthy weight, which is important in averting disease 
and costly long-term health problems. Reducing poor-diet-related 
disease risks may help reduce the nation's escalating health care 
costs. Our nation depends upon healthy people able to serve in the 
military service, lead businesses, provide health care, and educate 
future generations. Eating nutritious food, regardless of personal or 
household income, is critical in assuring our nation can depend on a 
capable, healthy population.
    As the nation knows well, the recent recession continues to affect 
millions of people in the nation, including Michigan, who now rely upon 
the emergency food system for help meeting their basic human needs. 
Forgotten Harvest is a leading source of nutritious food for people 
facing hunger in metro Detroit, one of the nation's and Michigan's most 
seriously affected communities over the past decade and in the recent 
economic recession. Forgotten Harvest's food rescue/distribution 
business model brings together partners across the economic sectors--
for-profit agricultural/food businesses, nonprofit food distribution 
agencies, and government organizations--to help people facing dire 
barriers to acquire and eat healthy food. Forgotten Harvest rescues 
surplus, fresh and prepared food from over 455 generous food 
businesses: farmers, dairies, processors, wholesalers and distributors, 
retailers, and high quality entertainment venues. We distribute this 
surplus, rescued, healthy fresh and prepared food free-of-charge to 
over 250 partner emergency food distribution agencies: pantries, soup 
kitchens, shelters, and faith-based and community partners via our 
farmers' market-style mobile pantry. This surplus healthy food--
vegetables, fruit, meat, dairy, baked goods, juice, and prepared food--
is distributed free-of-charge to no- and low-income people facing 
hunger in metro-Detroit.
    The equitable principle that eating nutritious food is a basic 
human right guided the provisions in prior farm bills. Forgotten 
Harvest is deeply distressed with the cuts to nutrition programs and 
other safety net programs that the House passed in recent budget 
action--and that have been proposed over the past year. A major portion 
of these cuts will hurt households with children and seniors. From 
first-hand experience, Forgotten Harvest knows that the hundreds of 
thousands of vulnerable people it serves are least able to expand their 
current financial resources when government safety net programs are 
cut.
    As the Committee addresses the 2012 Farm Bill provisions coincident 
with the nation's need to ``live within its means,'' Forgotten Harvest 
urges the Committee to continue to reinforce this fundamental basic 
human right as a factor in the significant economic role of the 
agricultural and nutrition sectors. Forgotten Harvest believes that the 
farm bill must continue to structure the Supplemental Nutrition 
Assistance Program (SNAP) to assure that communities of eligible people 
are able to receive expedient SNAP allocations regardless of their 
residential locations and the timing of dire need: in every state and 
in every rural, suburban, and urban community. As currently structured, 
SNAP is available rapidly to meet the need of eligible people. 
Forgotten Harvest urges the Committee to retain the current structure 
and not change SNAP to a block grant program, which would greatly limit 
the program's flexibility to respond rapidly and would add additional 
bureaucratic burdens without benefit for people facing need. In 
considering modifications to SNAP, Forgotten Harvest urges the 2012 
Farm Bill to expand innovative and effective SNAP outreach programs, 
such as the SNAP outreach demonstration program implemented by the 
Northern Illinois Food, as a model to help provide rapid emergency food 
support to people facing dire need.
    SNAP recipients' spending reinforces and enhances the economic 
value of the agricultural sector, because SNAP funds supports jobs for 
farmers and ranchers, food processors, distributors, and retailers. As 
the U.S. Department of Agriculture (USDA) reports, the economic 
multiplier of the SNAP program is $1.79: when recipients spend their 
SNAP allocations to acquire food, the community and food sector benefit 
by an even greater amount. Forgotten Harvest urges the 2012 Farm Bill 
to assure that no additional cuts are made to the SNAP allocation 
amounts for eligible people. Such cuts harm the people intended to 
benefit from SNAP and also will have a negative economic impact on the 
agriculture and broader food economic sectors.
    Forgotten Harvest also urges the Committee to strengthen The 
Emergency Food Assistance Program (TEFAP) to help keep up with 
increased demand. TEFAP supplies about 25 percent of the food in the 
nation's national network of ``food banks.'' TEFAP should have triggers 
to enable it to respond rapidly to need and also have provisions to 
enable the Secretary of Agriculture to use discretionary funds to 
enhance the quantities of food in the TEFAP system when economic need 
requires this food.
    While Forgotten Harvest acknowledges the difficult and painful 
questions that the nation must ask in addressing current budget 
challenges, our nation must not place additional and undue burdens on 
its most vulnerable people. Provisions that help feed vulnerable people 
must recognize that the same people may be least able to help fund 
these feeding support programs or to endure additional hardship caused 
by program or budgetary revisions. Forgotten Harvest is honored to meet 
many of the clients receiving its food and, through a SNAP pilot 
outreach program, to meet people applying for SNAP allocations: long-
term jobless people striving to secure employment, seniors struggling 
to live on minimal incomes, low-income parents and grandparents raising 
children, people with emotional challenges that place barriers on 
higher-income employment. As the Committee considers these emergency 
support programs, including SNAP and other nutrition and emergency food 
support programs,
    Forgotten Harvest urges careful evaluation of all possible 
unintended consequences that could harm the people these support 
programs are designed to help, on the agriculture sector, and on the 
gradually improving nation's economy.
    Principle: Surplus food must feed people, not landfills.
    The USDA reports that 96 billion pounds of food are wasted annually 
while 49 million people in our nation, including 17 million children, 
face hunger each year. The USDA has a significant role in helping feed 
people facing hunger. The EPA has reported that wasted food comprises 
the second largest volume in the nation's municipal landfills. The EPA 
has established a high priority on reducing wasted food for 
environmental reasons and urges diverting food to feed hungry people as 
a priority action. Forgotten Harvest urges USDA and EPA collaboration 
to address this mutually recognized human crisis.
    Forgotten Harvest urges the Committee to include provisions in the 
2012 Farm Bill to urge USDA to help reduce the waste of surplus healthy 
food by using innovative and cost-effective methods to redirect surplus 
food, currently wasted, to feed the nation's hungry people. Food 
recovery and diversion to feed people can be accomplished in a very 
cost effective model. For example, Forgotten Harvest rescues and 
distributes the equivalent of one nutritious meal for less than 20. 
Forgotten Harvest offers to provide the Committee with examples of 
locations in our nation and other countries that may provide insights 
into innovative, cost-effective programs with effective outcomes to 
address this principle.
    The U.S. has the power to end hunger in America and to be a model 
to other nations by denying healthy, safe, surplus food to landfills 
and instead providing that good food to our most vulnerable citizens. 
Even with the nation's extensive and effective government and nonprofit 
human service programs, millions of children and adults still face 
hunger. The House Committee on Agriculture can lead in addressing this 
hunger gap by emphasizing a principle in the 2012 Farm Bill that 
directs surplus healthy food to our nation's hungry people and not to 
waste sites.
                                 ______
                                 
                      Comment of Caroline Ginsberg
    Date Submitted: Friday, May 18, 2012, 1:20 p.m.
    City, State: San Luis Obispo, CA
    Occupation: Coordinator at the Food Bank Coalition
    Comment: Allow small school districts and school districts with low 
percentages of free and reduced price meals served (annual Entitlement 
Value less than $50,000) to volunteer to receive Cash-in-Lieu of the 
USDA Commodity Foods. Districts requesting this voluntary option, if it 
were made available by the farm bill, could purchase fresh, nutritious, 
locally grown, raised and/or caught foods for their students school 
meals and therefore invest in local food systems and at the same reduce 
USDA Food Program administration costs at the State level and perhaps, 
the Federal level.
                                 ______
                                 
                      Comment of Deborah Giordano
    Date Submitted: Friday, May 18, 2012, 5:21 p.m.
    City, State: Castro Valley, CA
    Occupation: Clergy
    Comment: Don't weaken poultry inspection standards!
    Current rules provide for three inspectors to examine 140 birds per 
minute. Under the new rules, inspections would speed up to 200 per 
minute--with only one inspector on the line. Even the professionals say 
that is way too fast.
    With far less time to inspect each chicken, unsanitary, defective 
poultry meat has a higher chance of making it into our supermarkets. 
And while USDA says it would save less than $30 million per year on 
poultry inspection costs, it could cost the agency (and us) far more to 
deal with potential increases in foodborne illness.
    Speeding up the poultry line isn't just hazardous to our health--
it's also hazardous to those who work in poultry factories. Poultry 
workers already have an alarming rate of workplace injury from 
conditions which include a workplace full sharp objects like knives and 
scissors, and from the repetitive nature of poultry factory tasks. 
Speeding up the chicken line will only make conditions even more 
hazardous.
    But while food and worker safety will undoubtedly suffer, the new 
rules are expected to result in a $\1/4\ billion windfall to poultry 
companies.
    The safety of our food, especially poultry which has such a high 
incidence of contamination, should be the highest priority of USDA. If 
their answer is less quality control inspection, more dangerous 
workplace conditions, and allowing an industry with a horrible safety 
record to police itself, it's probably time to go back to the drawing 
board.
                                 ______
                                 
                        Comment of Justin Giorgi
    Date Submitted: Thursday, May 03, 2012, 2:48 p.m.
    City, State: Klamath Falls, OR
    Occupation: Optician
    Comment: Our food system is in crisis largely due to government 
policy subsidizing large producers of low quality products. The foods 
produced by our system are tasteless and nutritionally-deficient. We 
have failed our small family farmers. We have failed to support them 
and we have failed to support the production of wholesome food.
    Since the current policies have been implemented we have seen a 
huge increase in health issues across the board. Any physician, anyone 
who studies health and wellness will tell you that the first factor in 
any one's health is their diet. A nutritionally balanced diet 
consisting largely of fruits and vegetables strengthens every system in 
the body allowing the body to naturally resist disease and fight 
infections. Our current salt, sugar, fat diet isn't just a personal 
choice. That is what the food system produces.
    Wholesome food simply isn't an option. We produce too little 
nutritious food and too much junk. Even the fruits and vegetables we 
produce are void of nutrients due to the way they are grown. This is a 
direct result of government policy. We must take quick and decisive 
action to correct this.
    Instead of encouraging large scale production of nutritionally void 
foods lets encourage small scale production of quality goods. We can do 
that by supporting the family farmer. If we must subsidize our food 
system we must do so wisely. We must subsidize the wholesome foods not 
the garbage. We must allow and encourage farmers to produce and sell 
the best product possible instead of the most that is possible.
    The end result will be a food system that produces quality food, a 
population that consumes less and is healthier overall. We cannot 
continue to reduce the cost of our food at the expense of our health. 
The truth is if we don't spend our time and money on food we will spend 
much more on health care.
    I must mention that I will be taking a great interest in the 
committee's hearings and decisions regarding the next farm bill. Anyone 
who stands up and challenges the current system, encourages change and 
at least makes an attempt to improve the system will earn my vote.
                                 ______
                                 
                      Comment of Karen Giovannini
    Date Submitted: Thursday, May 17, 2012, 12:28 p.m.
    City, State: Windsor, CA
    Occupation: Ombudsman
    Comment: I am writing in support of the suggestions by the National 
Sustainable Agriculture Coalition. Specifically, healthy food for 
school children (not processed food-like substances), Value-Added 
Producer Grants, Organic Ag Research & Extension, Conservation 
Stewardship Program and the Beginning Farmer & Rancher Development 
Program. We are conducting our first year of the Beginning Farmer & 
Rancher program and the response was overwhelming--100 applicants for 
25 openings. Clearly, the interest in small agriculture is alive and 
well. Thank you.
                                 ______
                                 
                       Comment of Jennifer Girvin
    Date Submitted: Friday, May 18, 2012, 10:36 a.m.
    City, State: Boston, MA
    Occupation: Executive Recruitment
    Comment: Please for the health and welfare of this country and our 
children's children, we must reform the farm subsidy system! Greed has 
played havoc on every vital sector of our economy and it will ruin the 
USA. We need to support small farms and eliminate factory farming now.
                                 ______
                                 
                         Comment of Diedre Gish
    Date Submitted: Friday, May 18, 2012, 3:43 p.m.
    City, State: Sharon, VT
    Occupation: Finance Manager
    Comment: The farm bill should support small, diversified, healthy 
agriculture. The farm bill should not subsidize commodity crops and 
should not encourage CAFOs. The farm bill should have more incentives 
for organic agriculture that provides sustainable soils without the use 
of chemical fertilizers and pesticides.
                                 ______
                                 
                         Comment of Steve Given
    Date Submitted: Friday, May 18, 2012, 12:55 p.m.
    City, State: Bainbridge Island, WA
    Occupation: Musician
    Comment: Congress should be very careful in weighing the arguments 
put forth by Big Business lobbyists when the average person who will be 
more affected rarely gets a voice.
                                 ______
                                 
                        Comment of Nancy Givens
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Bowling Green, KY
    Occupation: University Sustainability Program Coordinator
    Comment: In 1985, American taxpayers and farmers entered into a 
compact to provide a safety net for the country's food producers in 
return for protection of critical natural resources. Known as 
``conservation compliance'' this policy requires farmers to follow 
conservation plans that limit soil erosion on highly erodible land as 
well as preventing destruction of wetlands and native grasslands. 
Farmers who willfully violate their conservation plans risk losing 
taxpayer funded benefits.
    Today, this important connection is at risk. Taxpayer-funded 
subsidies for crop insurance are not currently linked to conservation 
compliance as they once were. Congress is currently considering 
eliminating Direct Payments, the major subsidy program that is linked 
to conservation compliance, and moving some of those funds to support 
increased subsidies for crop insurance, which currently lacks 
compliance requirements. Unless Congress connects crop insurance 
subsidies to conservation compliance, a significant part of farmers' 
incentive to follow conservation plans will disappear this year.
    In order to ensure that the agricultural safety net works in 
harmony with conservation programs and responsible land uses, 
conservation compliance provisions must be strengthened and enforced. 
Long-term protection of our nation's agricultural land is of vital 
importance to our country. Thank you for consideration.
                                 ______
                                 
                       Comment of Roger G. Givens
    Date Submitted: Friday, May 18, 2012, 5:39 p.m.
    City, State: Morgantown, KY
    Occupation: Retired
    Comment: In this time of large equipment farming where the 
necessity to till large acres in order to profit good conservation 
programs are of the highest importance. Please don't underfund these 
programs. Our waterways depend on them.
                                 ______
                                 
                        Comment of David Givers
    Date Submitted: Friday, May 18, 2012, 3:55 p.m.
    City, State: Moorhead, MN
    Occupation: Retired
    Comment: I am opposed to farm subsidies that make the big farms 
bigger and the rich richer. I am opposed to the cuts in food stamps 
when we are in the midst of an economic depression.
    America needs a farm bill that supports jobs and organic ag.
                                 ______
                                 
                     Comment of Katherine Glascock
    Date Submitted: Friday, May 18, 2012, 2:49 p.m.
    City, State: Studio City, CA
    Occupation: Garden Designer
    Comment: Please, on behalf of our children and their children: give 
us healthy sustainable food so our Earth is protected from the giant 
footsteps of the chemical corporations. They have done so much harm; we 
must turn everything around with determination.
                                 ______
                                 
                        Comment of Aviva Glaser
    Date Submitted: Sunday, May 20, 2012, 5:03 p.m.
    City, State: Washington, D.C.
    Occupation: Legislative Representative for Agriculture Policy, 
National Wildlife Federation
    Comment: The National Wildlife Federation (NWF) would like to thank 
Chairman Lucas, Ranking Member Peterson and the members of the House 
Agriculture Committee for considering our input on the 2012 Farm Bill. 
NWF is America's largest wildlife conservation organization, 
representing more than 4 million members and supporters throughout the 
United States and 48 affiliated state and territorial conservation 
organizations. NWF strongly supports farm bill conservation and energy 
programs. Farm bill conservation programs are particularly important 
for wildlife and wildlife habitat. Thousands of farmers are restoring 
imperiled wildlife habitat and wetlands throughout the country with the 
assistance of farm bill programs. The hard work of these local stewards 
is critical to protecting our natural resources and valued ecosystems 
across the country, but their success is at risk unless these programs 
are maintained under the next farm bill.
    The following represent some of our top priorities for the 2012 
Farm Bill:

    Adopt a ``Sodsaver'' provision to protect native habitat:

    The current agriculture safety net provides substantial price 
support and risk protection to crop producers which make crop 
production economically viable even where yields are consistently poor. 
The reduction in economic risk for crop production, combined with 
advances in herbicides and genetically modified crops provides 
incentives to break new ground--even where that ground is not likely to 
be productive.
    Currently, crop insurance and disaster payments incentivize farmers 
to bring disaster-prone farmland into cultivation, creating taxpayer 
liability for the high risks associated with producing crops on 
marginal land. In South Dakota, for instance, from 1997 to 2006 the 16 
counties with the highest number of native grassland conversions to 
cropland had annual crop insurance net benefits to producers that were 
more than double those in all other counties (GAO 2007).
    In order to halt the continued ``break out'' of native habitats 
that are too dry, marginal or flood-prone to produce good crops, but 
can still be broken without economic risk to producers due to an 
extensive safety net of subsidies and disaster payments, the National 
Wildlife Federation strongly supports the adoption of a ``Sodsaver'' 
provision in the 2012 Farm Bill. Such a provision would make non-
cropland that is converted to cropland ineligible for any farm bill 
benefit, including but not limited to price and income support 
payments, crop insurance, disaster payments, and conservation program 
enrollment. Landowners may choose to break native prairie or other non-
cropland if they so desire, but they must do so with the full 
understanding that the profitability of crops grown on this acreage 
will depend on free-market economics, not agricultural subsidies, crop 
insurance, and disaster payments.
    A Sodsaver provision would provide significant budget savings. 
Estimates determined in previous farm bill reauthorizations placed 
Sodsaver's 10 year savings in a range from $1.4 billion (2002 CBO) to a 
low of $119 million (2008 CBO score for just crop insurance subsidies).
    The National Wildlife Federation supports the Sodsaver provision 
that was included in the farm bill that passed out of the Senate 
Agriculture Committee last month, but urges the House Agriculture 
Committee to include a stronger provision in the bill they write. A 
stronger Sodsaver provision would include a prohibition on receiving 
the entire premium subsidy for crop insurance should a landowner choose 
to convert land without a cropping history.

    Maintain funding for a strong conservation title:

    As we move into the 2012 Farm Bill in one of the toughest budget 
climates in recent years, farm bill conservation programs are 
increasingly seen as a target for budget cuts. Farm bill conservation 
programs have demonstrated benefits for soil, water, and wildlife. 
Moreover, they have been shown to contribute to rural economies through 
increased revenues from hunting, fishing, and other recreational 
activities.
    Farmer and rancher demand for conservation assistance dollars 
remains high, outstripping the supply of available program dollars even 
before any funding cuts are considered. As of April 2010, there was a 
backlog of over 1,000,000 unfunded applications for the Wetlands 
Reserve Program and Grasslands Reserve Program. In 2009, for every 
application that received funding under the Environmental Quality 
Incentives Program, there were 3.4 applications that did not. Clearly 
these are programs that are popular with farmers that also provide 
benefits to taxpayers through cleaner water, improved water management 
and flood prevention, and the protection of vital wildlife habitat and 
special places that define many areas of the United States. According 
to a USDA study, EQIP projects that address erosion provide over $54 
per acre in value by reducing nutrient replacement costs for farmers 
and avoiding costs for public works to develop alternative ways to 
clean up polluted waters (USDA 2010a). Other conservation programs such 
as WRP, GRP, WHIP, and CSP provide similar returns to taxpayers that 
exceed costs (USDA 2009; USDA 2010b).
    The conservation title must continue to balance the pressing needs 
of wildlife, along with soil and water and other conservation needs. In 
the 2008 Farm Bill, the Conservation Reserve Program took a cut of 7 
million acres--a cut that is likely beginning to have serious negative 
repercussions for wildlife on the agricultural landscape. The National 
Wildlife Federation understands that in this challenging fiscal 
climate, cuts to all parts of the farm bill are inevitable. The Senate 
Agriculture Committee's bill cuts $6 billion from conservation programs 
over the next decade, cuts that will have serious impacts on the 
landscape. Any further cuts to conservation programs and spending on 
wildlife will be lead to an unsustainable situation for wildlife on the 
agricultural landscape could lead to the listing of several species of 
wildlife under the Endangered Species Act.

    Provide funding for wetland and grassland easements with 
flexibility for grassland easements:

    Both the Wetland Reserve Program (WRP) and Grassland Reserve 
Program (GRP) are critically important programs for wildlife with 
baselines that expire in September, 2012. The Wetland Reserve Program 
(WRP) is a critically-important program that plays a significant role 
in taking flood-prone land out of production and putting it back to its 
most beneficial use, filtering runoff, storing flood water, and 
providing for wildlife habitat. Funding must be found to continue to 
support the restoration and protection of wetlands on agricultural land 
and such funding should continue to be focused on ecological 
restoration of wetland systems and their long-term protection.
    The Grassland Reserve Program (GRP) is critical to protecting our 
last remaining native grasslands as well as keeping ranching 
economically viable. There is an enormous demand for GRP--as of April 
2010, there were over 800,000 acres waiting to be enrolled in the 
program--yet the program has never been sufficiently funded to even 
begin to keep up with demand.
    The National Wildlife Federation supports the general framework of 
a combined easement program. However, we are concerned that the 
inclusion of a 50% matching requirement for GRP would be highly 
detrimental to the program. More than 95% of America's native 
grasslands have been converted to other uses since settlement. The 
lands that remain in grass are increasingly important to the continued 
viability of the ranching community throughout the west. Grassland 
nesting birds have been repeatedly listed by the U.S. Geological Survey 
as the fasting declining group of bird species in North America and 
several species could soon be federally listed under the Endangered 
Species Act if their habitat continues to decline. Keeping what is left 
of intact grasslands in grazing use should be a high priority of the 
farm bill conservation title to support both the ranching industry and 
biodiversity.
    Yet many areas where such lands remain do not have a well developed 
land trust community and/or there is little money to fund the purchase 
of grassland easements. In order to ensure continued opportunities to 
enroll rapidly disappearing native grasslands that are important active 
grazing lands, and where few opportunities exist to leverage matching 
funds for such conservation, we recommend the creation of a 1 million 
acre priority grasslands option within the agricultural land easements 
program under which the cost share would be waived for high priority, 
large, intact native grasslands. Additionally, we recommend flexibility 
within the program for the Secretary to adjust cost share requirement 
on a case by case basis if the Secretary determines that 
environmentally sensitive land of special significance would be 
protected.

    Provide adequate funding for wildlife practices in the Conservation 
Title:

    The Wildlife Habitat Incentive Program (WHIP) is a voluntary 
program that pays up to 75 percent of the cost to private land owners 
for enhancing wildlife habitat on their land. The program is not 
limited to agricultural lands, but is open to any private landowner who 
would like to create wildlife-friendly habitat enhancements to a 
portion of their land, such as restoring native prairie grasses, 
performing forest management practices, or improving aquatic areas. The 
program is highly popular among landowners, and in 2010, there were 
over 1 million acres enrolled in the program, with a backlog of over 
500,000 acres waiting to be enrolled.
    The farm bill that passed through the Senate Agriculture committee 
combined WHIP into the Environmental Quality Incentives Program, with a 
provision saying that at least 5% of EQIP funds had to go towards WHIP. 
However, at least 5% of EQIP funds are currently going to wildlife 
practices. The bill authorizes EQIP for FY13 at $1.5 billion; 5% of 
that would be $75 million, which would be around a 12% cut. However, 
because EQIP already includes wildlife practices--and currently at 
least 5% of EQIP is already going towards wildlife practices, we run 
the very real risk of losing the additionality of WHIP. Already, WHIP 
has over 500,000 acres in backlog that are not funded (as of 2010): the 
farm bill as written could effectively eliminate the WHIP program as we 
know it. A better solution to meet the needs to wildlife, should EQIP 
and WHIP be consolidated, is to provide for at least 8% of EQIP funds 
to go towards WHIP.

    Maintain the integrity of the Conservation Reserve Program:

    Since its creation in 1985, each year Conservation Reserve Program 
(CRP) has been responsible for reducing hundreds of millions of tons of 
erosion, and nutrient pollution into our nation's waterways. CRP is 
also an important reservoir for wildlife, and has had significant 
benefits for populations of ducks, grassland birds, and other species. 
We understand that high commodity prices, expiring acres, and the 
current fiscal environment are leading to pressure to re-examine the 
Conservation Reserve Program (CRP) acreage cap. We strongly urge the 
Senate Agriculture Committee to maintain an adequate CRP program to 
address soil, water and wildlife concerns across the landscape.
    Additionally, while we support further compatible uses of CRP, such 
as expanded grazing, we call on members of the committee to oppose 
increased economic uses of the CRP that are incompatible with the 
program's focus on soil, water and wildlife conservation, as well as 
the penalty free early release of land enrolled in the Conservation 
Reserve Program (CRP). We request that timing and frequency of haying 
and grazing continue to be set according to the needs of grassland 
species in each region, under consultation with the U.S. Fish and 
Wildlife Service and state wildlife agencies. We support eliminating 
the requirement that materials generated by mid contract management 
activities be destroyed. Where such materials can be sold, as hay, 
biomas, etc., it is more likely that needed management activities will 
be undertaken by contract holders.
    CRP also promotes underlying economic benefits. Every year, hunters 
and anglers inject billions of dollars into rural economies throughout 
the country. The Congressional Research Service estimates that the 
Conservation Reserve Program averages around $1.4 billion per year in 
monetized benefits, not including the value of benefits such as 
improved water quality and reduced loss of topsoil. The program plays a 
key role in providing habitat for wildlife and is critical for 
protection of the water quality. Each year, CRP prevents an estimated 
600 million tons of nitrogen and 100 million tons of phosphorus from 
being released into the air and water. Additionally, by enrolling lands 
in CRP, the nation benefits from the sequestration of carbon dioxide. 
In 2010 alone, CRP lands sequestered 51 million tons of carbon dioxide.
    Current high commodity prices have led some to call for a reduction 
in CRP acres or penalty-free releases for farmers with lands currently 
enrolled in CRP. Many justify this position by concluding those lands 
could be used to grow more commodities which would then help bring down 
the high cost of food. Unfortunately, that assumption fails to consider 
many details and completely ignores the cost of allowing CRP lands back 
into production. A 2008 USDA analysis concluded that allowing early 
release of CRP lands would impact corn prices by no more than $0.27 per 
bushel and would result in little to no price impact for consumers. 
Unfortunately, releasing CRP acres would put so much more at risk. CRP 
acres protect highly-erodible lands from practices that would result in 
substantial soil erosion and nutrient pollution. Additionally, CRP 
protects critical habitat for grassland birds such as the Lesser 
Prairie Chicken and Sharp Tail Grouse. CRP has played a vital role in 
keeping the Henslow's Sparrow off of the endangered species list. Also 
included in CRP are over 2 million acres of buffers that filter 
nutrients out of field run off before it enters waterways. All of these 
ecosystem services would be lost with an early release of CRP acres 
while the farmers would see little gain by farming these often marginal 
and highly-erodible lands.

    Re-link conservation compliance to crop insurance:

    Sodbuster and Swampbuster provisions, originally enacted as part of 
the 1985 Food Security Act, require agricultural producers to refrain 
from draining wetlands on their property and from farming highly 
erodible lands without a conservation plan if the producers wish to 
maintain eligibility for certain farm program benefits. These 
provisions have been widely credited with turning the tide for wetlands 
loss on agricultural lands and for preventing significant amounts of 
soil erosion. Yet this compliance was decoupled from the crop insurance 
program during the 1996 Farm Bill in an effort to make crop insurance 
more attractive. Now crop insurance is fast becoming the most important 
Federal benefit many farmers receive. Sixty percent of the cost of crop 
insurance is covered by taxpayer funding. It is critical, therefore 
that producers be required to refrain from damaging activities if they 
want to receive this benefit. Compliance must be re-linked to crop 
insurance and disaster payments, and apply to all Federal agriculture 
program benefits. It will be very hard to justify the continued 
taxpayer investment in crop insurance if participants in the program 
are allowed to drain thousands of acres of wetlands and increase 
erosion running into waterways by farming highly erodible land without 
any conservation planning. In addition, Congress should consider 
expanding compliance to require tillage setbacks from streams, 
wetlands, lakes and rivers. Several states already have such provisions 
in state law. This will help prevent erosion and improve water quality 
and are common-sense practices all producers should follow.

    Address nutrient pollution into the Great Lakes and other waters:

    America's waters, including the Great Lakes and Chesapeake Bay, are 
facing a crisis. Algae blooms brought on by excess nutrients running 
into our rivers and lakes are suffocating fish and other aquatic 
organisms. Dead zones caused by these algae blooms are disrupting 
entire ecosystems as well as fishing and recreational industries that 
have defined the Great Lakes for hundreds of years. This has been a 
growing problem over the last 30 years. If we are to protect America's 
great waters, we must address the largest threat to its health and our 
wellbeing.
    Fortunately, there are a number of solutions to nutrient pollution, 
each of which present not only solutions to protecting our water, but 
also provide ways for farmers to increase their profit margins. The 
National Wildlife Federation supports the innovative Regional 
Conservation Partnership Program that was included in the farm bill 
that passed out of the Senate Agriculture Committee. This program 
provides resources to leverage existing regional partnerships to most 
cost-effectively protect and restore great waters of the U.S. This 
program will help direct Federal resources toward well-developed 
conservation and restoration plans while leveraging state and private 
resources to maximize total impact in on the ground conservation 
efforts.

    Support an Effective Biomass Crop Assistance Program:

    The Biomass Crop Assistance Program (BCAP) assists producers with 
the cost of establishing crops to be used in a biomass facility, plus 
annual payments to help compensate for lost income while the crops are 
established. The program also provides cost-share payments for 
collection, harvesting, storage, and transportation of biomass. The 
annual payments portion of the program has only begun to be implemented 
over the past 2 years, but producers have already successfully begun 
establishing next generation feedstocks under this portion of BCAP. 
This annual payments portion of the program is critical to support 
development of the next generation of biofuels and bioenergy, and the 
National Wildlife Federation urges the House Agriculture Committee to 
support next generation bioenergy by continuing funding to this portion 
of the program. NWF supported the Conrad-Lugar amendment to the Senate 
Agriculture Committee's bill. The amendment, which passed with almost 
full support from the committee, provides almost $200 million for BCAP 
over the next 5 years. NWF also supports limiting the collection, 
harvest, storage, and transportation portion of BCAP to no more than 
10% of the program. With limited funds going towards BCAP, the annual 
payments portion of the program should be prioritized.
    Currently, BCAP includes a prohibition on using project area funds 
to plant ``any plant that is invasive or noxious or has the potential 
to become invasive or noxious, as determined by the Secretary, in 
consultation with other appropriate Federal or State departments and 
agencies.'' Unfortunately, several early efforts to reauthorize the 
program left out the proscription on use of ``potentially invasive 
species in the program. As research on next generation bioenergy crops 
is rapidly progressing, there are many non-native and GMO crops that 
are being proposed for use as bioenergy crops, many of which have not 
been used in this country before, and the invasive potential of these 
crops must be evaluated. It takes a long time to list something as 
invasive, and since many of these plants have not been used here 
before, they are unlikely to have been listed as invasive. There are 
plenty of species that have not been officially listed as invasive or 
noxious that are still of significant concern. Without the `potentially 
invasive' clause, they will not have to go through the same review that 
they go through now, and we may be inadvertently funding a highly 
invasive plant that could spread from establishment sites and become a 
nuisance on nearby farms, rangelands, or natural areas. The Conrad-
Lugar amendment to the Senate Agriculture Committee's 2012 Farm Bill 
further clarifies the term `potential to become invasive or noxious' by 
prohibiting: ``any plant that is invasive or noxious or species or 
varieties of plants that credible risk assessment tools or other 
credible sources determine are potentially invasive, as determined by 
the Secretary in consultation with other appropriate Federal or State 
departments and agencies.'' NWF urges the House Agriculture committee 
to continue to prohibit BCAP dollars from funding the planting of 
potentially invasive species, either through the clarified language or 
the language that is currently in law.
Conclusion
    Thank you again for the opportunity to submit these comments. The 
2012 Farm Bill presents both great challenges and great opportunities. 
We look forward to working with Chairman Lucas, Ranking Member Peterson 
and the rest of the members of the House Agriculture Committee to 
ensure strong conservation and energy provisions that will protect our 
air, soil, water and wildlife habitat.
References *
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
    Government Accountability Office. 2007. Farm Program Payments Are 
an Important Factor in Landowners' Decisions to Convert Grassland to 
Cropland. GAO Report 07-1054.
    USDA-NRCS. 2009. Interim Final Benefit-Cost Analysis for the 
Wetlands Reserve Program (Jan. 9, 2009), 17.
    USDA-NRCS. 2010a. Final Benefit-Cost Analysis for the Environmental 
Quality Improvement Program (May 24, 2010), 21.
    USDA-NRCS. 2010b. Final Benefit-Cost Analysis for the Grassland 
Reserve Program (March 31, 2010), 12.
                                 ______
                                 
                         Comment of Jean Glaser
    Date Submitted: Friday, May 18, 2012, 10:23 p.m.
    City, State: Park City, UT
    Occupation: Artist
    Comment: It is vital to the future health of our society and our 
Agriculture that we encourage sustainable, organic farming in which 
nutrition and conservation are key to the production of food in this 
country.
                                 ______
                                 
                         Comment of Joe Glaston
    Date Submitted: Wednesday, May 09, 2012, 5:52 p.m.
    City, State: Desert Hot Springs, CA
    Occupation: Retired Video Post Production Worker
    Comment: Older Americans' struggles with hunger are often 
invisible. It's too easy for most people to overlook how many seniors 
have serious trouble accessing the food and nutrition they need to 
survive and thrive. Often, they are forced to make difficult decisions 
between food, medicine, or paying their utilities or rent. Please 
protect SNAP, TEFAP, and CSFP.
                                 ______
                                 
                      Comment of Katherine Glatter
    Date Submitted: Friday, May 18, 2012, 3:41 p.m.
    City, State: Amherst, MA
    Occupation: Massage Therapist
    Comment: Please do all in your power to support local, sustainable, 
organic farming practices in the USA. Do not kid yourselves; hand-outs 
to big Ag will eventually effect us all for the worse.
    I want change!
            Thank you,

Katherine Glatter.
                                 ______
                                 
                          Comment of Ted Glaub
    Date Submitted: Thursday, March 29, 2012, 3:01 p.m.
    City, State: Jonesboro, AR
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: Statement on the 2012 Farm Bill

March 2012

Arkansas Soybean Association and American Soybean Association
Reasons for a Farm Program Safety Net
    Soybean farmers believe an income safety net is essential for 
production agriculture. Critics of farm programs argue that agriculture 
is no different from other businesses, so why should the government 
support it? They also point to the historically high commodity prices 
we have enjoyed in recent years and say it's time to eliminate or phase 
out these programs.
    To the first point, U.S. agriculture has always been and remains 
based on the family farm as the economic unit of production. As 
individual businesses, we compete not only with farmers in South 
America and other countries around the world, but with our neighbors 
and producers across the country.
    Programs to ensure food production in the U.S. is stable and 
produced in large enough quantities to meet demand are important to our 
nation. We do not want to become dependent on imports for our food. We 
should support agricultural production in the U.S. to continue meeting 
our food needs and to increase our production of renewable fuels, such 
as ethanol and biodiesel. With one out of every 12 U.S. jobs tied to 
agriculture, a positive trade impact by farm products, renewable fuel 
production, plus the security of a large portion of our country's food 
supply grown domestically, it quickly becomes apparent that farming is 
an essential asset for our nation's economy and security. Numerous 
factors such as government policies that restrict trade, surplus global 
production, and unfavorable weather all negatively affect our farmers' 
ability to operate profitably. Government support for risk management 
and crop insurance programs is a necessary investment to protect our 
country's valuable asset.
    Regarding current price levels, farmers all remember 1995 and 1996, 
when prices were relatively high and Congress decided to phase out the 
target price program to reduce costs. Three years later, prices for 
most commodities fell sharply due to global oversupply and reduced 
demand. By 2001, prices were down an average of 45 percent for major 
commodities, and Congress had to step in to provide emergency 
assistance.
    Without that assistance, many U.S. soybean farmers would have gone 
out of business. The reality in farming is that markets are cyclical. 
We need a safety net, not to pay us year-in and year-out, but to keep 
us in business when, through no fault of our own, we can't make ends 
meet.
    Farmers want to make their living from the market, not from the 
government. We support policies that allow and encourage us to respond 
to market signals, and which provide assistance only when the economics 
of farming are so negative that we have no other recourse. We believe 
we perform a vital service in providing our country and a growing world 
with an abundant supply of high quality food, feed, fiber and fuel at 
reasonable prices.
Background on Past and Current Farm Programs
    To underscore this statement, we would like to provide some 
background on how farm programs and policy have become increasingly 
market-oriented in recent years. In 1981, the prevailing thinking was 
that, as the world's largest exporter of major commodities, the U.S. 
could support prices by idling productive farmland and diverting 
surpluses into farmer-owned reserves. In order to be eligible for 
payments under the old Target Price program, we were restricted to 
growing crops on acreage bases determined for each farm. Moreover, we 
had to grow those crops in order to receive these payments.
    This policy resulted in planting distortions and overproduction of 
crops already in surplus, further depressing prices and shifting 
increasing quantities into reserve. It prevented farmers from 
responding to market signals that called for greater production of 
crops which did not have acreage bases, including soybeans. And it made 
the U.S. the supplier of last resort, as competitors in Europe and 
South America increased production and exports, knowing that our crops 
would be held off the market until prices rose above world price 
levels.
    This policy remained in place until 1996, when Congress enacted the 
landmark ``Freedom to Farm'' legislation. Under ``Freedom to Farm,'' 
the government safety net was decoupled from planting decisions, and 
producers were allowed to plant any program crop on their farm. The 
result has been a return to competitiveness and greater profitability 
for U.S. agriculture. In response to increased global demand, soybean 
plantings rose from 60 million acres in 1995 to 75 million acres in 
2010. Most producers have wholeheartedly supported the planting 
flexibility provided under the last three farm bills. For soybeans, 
which have relatively modest supports under the Marketing Loan and 
Counter-Cyclical Payment Programs, maintaining planting flexibility is 
of paramount importance.
Position on Commodity Programs
    Soybean farmers recognize that deficit reduction is a national 
priority, and that agriculture should do its fair share in helping to 
bring down Federal spending. We supported the deficit reduction efforts 
of leaders in both the Senate and House Agriculture Committees last 
fall, when they committed to cut $23 billion from the cost of the next 
farm bill. We believe this level of cuts will still allow the 
Committees to write new farm legislation that continues to provide an 
adequate safety net to producers.
    We also recognize that cuts in the commodities title will come from 
elimination of the Direct Payment program, and that existing programs 
will need to be restructured. While Direct Payments to soybean 
producers are not as significant, proportionate to crop value, as 
payments to producers of other crops, this program has been the 
cornerstone of planting flexibility for the past 15 years. However, 
since payments are made regardless of price levels, and prices have 
been historically high for several years, Direct Payments have become 
untenable in the current budget environment.
    As ASA looked at program alternatives to help farmers manage risk, 
we concluded that the best complement to income protection under the 
existing crop insurance program would be a revenue-based program that 
partially offset losses that exceed a specified revenue threshold. This 
approach would make significant changes to but is similar to the 
current ACRE program, which has had limited participation due to its 
complexity, reductions in Direct Payments and Marketing Loan rates, and 
a state-level revenue-loss trigger. ASA supports a single farm-level 
trigger under which producers would be required to document losses on a 
commodity-specific basis, so payments would be made only when actual 
losses occur. This requirement would address criticism that payments 
under current programs are made regardless of commodity prices and 
yields. We also support a revenue loss requirement under this program 
of not less than 10 percent, and a coverage band not to exceed 15 
percent.
    While payments under this program would be tied to actual 
production in the current year, we do not believe it will distort 
planting decisions and production. Requiring farmers to document actual 
losses in order to receive revenue payments would be a significant 
deterrent to ``planting for the program'' rather than following market 
signals. Additionally, using moving Olympic average prices as part of 
the revenue threshold calculation would make the program responsive to 
market price movements over time. Finally, revenue payments would only 
be made on a specified percentage of actual revenue losses that exceed 
a threshold loss, thereby further limiting the possibility of planting 
distortions.
    We acknowledge that a revenue-based program may not be appropriate 
for producers of certain commodities, or in areas where yield 
variability is relatively low. We support providing flexibility or 
alternative programs for these producers, provided they do not have the 
potential to affect planting decisions and reduce planting flexibility. 
The argument may be made that, with prices expected to remain at 
historically high levels, the chance that fixed support prices tied to 
actual production could distort producer cropping decisions is 
relatively small. However, as pointed out earlier, we need go back no 
further than 1999 to 2001 to see how wrong such projections can be.
Opposition to Restructuring Crop Insurance
    ASA also strongly supports the existing crop insurance program as 
the foundation for risk management under the farm safety net. Soybean 
producers actively participate in crop insurance, and repeatedly 
express opposition to any restructuring of the program or reductions in 
its baseline for deficit reduction. We applaud the decision by the 
leaders of both the Senate and House Committees last fall to leave crop 
insurance untouched in developing a farm bill proposal that met your 
deficit reduction target.
    ASA opposes making crop insurance premium subsidies subject to 
payment limitations, or subjecting crop insurance participation to 
conservation compliance requirements. These provisions are 
appropriately applied to eligibility for farm program benefits. Tying 
either to crop insurance would discourage participation in the most 
important risk management program for soybean producers.
    We would like to reemphasize the importance of maintaining planting 
flexibility and avoiding the possibility of planting distortions under 
any alternative programs the Committee may consider in restructuring 
the farm safety net. Analysis and modeling by noted agricultural 
economists show the potential for planting distortions under some 
alternative farm program policy options, as well as the potential for 
the United States to exceed its WTO commitments as a result of these 
farm policy options under a low price scenario where prices fall 15 
percent per year for 3 years from current levels. The avoidance of farm 
program-induced planting distortions and allowing producers to respond 
to markets while managing risk has been the most valuable policy 
provided under the current farm program and must be maintained.
    Attached to this statement is an annex that provides personal 
experiences from several members of the American Soybean Association 
Board of Directors on past and current farm programs.
Position on Conservation Programs
    ASA supports the framework of the Conservation Title put together 
for the Joint Select Committee on Deficit Reduction. That framework, as 
we understand it, consolidates the existing 23 conservation programs 
into 13. ASA members support efforts to focus scarce conservation 
funding on working lands conservation rather than on land retirement 
under the Conservation Reserve Program (CRP). CRP enrollment should be 
reserved for the most environmentally sensitive land. We also believe 
the complexity and labor-intensiveness of conservation programs is a 
serious issue that has limited farmer participation in these programs. 
We hope that simplifying and consolidating important conservation tools 
into fewer, more flexible programs will increase the participation of 
soybean farmers in USDA conservation programs.
Position on Agricultural Research
    ASA supports robust funding for USDA research programs, which are 
critical to achieving the agricultural production levels necessary to 
feed 9 billion people and to remain competitive in a global economy. 
ASA strongly supports reauthorization of the Agricultural Food and 
Research Initiative (AFRI) with appropriations authorized at $700 
million annually. AFRI is the Nation's premier competitive, peer-
reviewed research program for fundamental and applied sciences in 
agriculture. We recognize that AFRI funding has fallen well short of 
levels authorized in the 2008 Farm Bill and will continue to advocate 
full funding in the appropriations process.
    ASA also supports reauthorization of provisions that support 
research at land-grant universities.
Position on Energy Programs
    There are several Energy Title programs in which soybean producers 
have a strong interest, including the Biobased Market Program (Section 
9002), the Biodiesel Fuel Education Program (Section 9006), and the 
Bioenergy Program for Advanced Biofuels (Section 9005). ASA recognizes 
that the Energy Title programs do not have baseline funding beyond 
2012, which creates a significant challenge to extending these programs 
and building on the benefits they have provided. However, the Biobased 
Market Program and the Biodiesel Fuel Education Program remain as high 
priorities for ASA and we believe that the relatively low cost and the 
benefits provided through these programs warrant their continuation 
with an increased level of mandatory funding.
    Section 9002, Biobased Market Program: The Biobased Market Program 
continues and expands the Federal biobased procurement program and 
voluntary labeling program. This is an effective and important program 
for promoting the emerging biobased industry, which has significant 
potential to enhance agricultural markets, displace foreign petroleum 
and fossil fuels, and contribute new ``green'' jobs to the economy. 
Under the Biobased Market Program, USDA administers the BioPreferred 
Program, which is a preferred procurement program for all Federal 
agencies.
    The Biobased Market Program received mandatory funding totaling $9 
million for FY 2008-2012. With the expansion of the BioPreferred and 
biobased labeling program, ASA supports providing increased mandatory 
funding for USDA to administer the programs and further promote 
biobased markets.
    Section 9006, Biodiesel Fuel Education Program: The Biodiesel 
Education Program plays a vital role in helping expand marketplace 
acceptance and use of biodiesel as a low-carbon, renewable diesel 
replacement fuel. It supports technical outreach efforts to engine 
manufacturers, truckers, and fuel marketers that will eventually allow 
the use of higher biodiesel blends in conventional diesel applications. 
The education program serves to expand and increase market penetration, 
thus promoting growth for the entire industry. This translates into 
higher production, more jobs, and more economic value, especially in 
rural communities.
    Specifically, the biodiesel education program had a large part to 
play in building automakers trust in, and support for, biodiesel 
blends. Since 2003, the industry has achieved great success in 
garnering support from engine manufacturers for biodiesel through the 
biodiesel education program. Currently, 34 major U.S automakers and 
engine manufacturers accept the use of B5 and up to B20.
    Biodiesel is providing energy, economic, and environmental benefits 
and ASA urges the continuation of this program with a relatively small 
investment of $2 million annually in mandatory funding in the 2012 Farm 
Bill.
Position on International Trade Programs
    ASA strongly supports maintaining full funding of both the FMD 
program and MAP at the current levels of $34.5 million and $200 
million, respectively.
    Through the World Initiative for Soy in Human Health (WISHH) and 
the World Soy Foundation, soybean farmers are committed to improving 
nutrition in populations suffering from malnutrition and poverty. We 
strongly support all U.S. food aid programs, and uses of food in 
development and emergency assistance to developing nations. While ASA 
recognizes that a plan to reduce deficit spending and debt may include 
across-the board cuts in the national budget, we oppose 
disproportionate reductions in development food aid programs.
Annex
          Under the target price farm bill of the 1980's and early 
        1990's, we were forced economically to plant crops that require 
        more tillage, such as cotton and peanuts, and had little to no 
        ability to rotate. Under subsequent farm bills that are 
        decoupled from bases, we are now able to implement rotations 
        that reduce erosion and make more efficient use of our 
        resources because we can develop better farming practices 
        according to market signals.

        Wade Cowan,
        Brownfield, Texas.

          In the late 1980's and until Freedom to farm legislation, we 
        were required to plant all our corn base area in order to 
        maintain our corn base and not lose government support. Our 
        corn base was about \2/3\ of our total area, and on some farms 
        100%--so we were `required' to plant more corn that our best 
        crop rotation plan for soybeans/corn would allow. The 
        requirement to maintain base area caused us to plant more corn 
        than the market indicated we would. It was a great relief when 
        the Freedom to Farm legislation passed and we could plant the 
        right crop at the right time.

        Ray Gaesser,
        Corning, Iowa.

          In the 1980's and early 1990's, I planted cotton on all my 
        allotment acres. Most of that time, cotton prices were fairly 
        low, so we planted cotton hoping to break even on expenses and 
        collect government payments for any profit we might have.
          Into the late 1990's, I was still planting 75% cotton and 25% 
        soybeans. Cotton yields were declining due to nematode 
        infestations. It turned out that corn was the perfect rotation 
        crop for this problem in cotton because the reniform nematodes 
        could not grow on the corn roots. With decoupled payments, I 
        was no longer tied to cotton production. I increased soybean 
        and corn acres from 2001 to 2006, since they were more 
        profitable. Beginning in 2007 and through 2010, I planted 
        cotton again because market prices dictated that I needed to 
        plant some. Through the 2000's, I chose the crops that were 
        most profitable for me to plant based on market expectations, 
        not due to government program payments as in the 1980's and 
        1990's.

        Danny Murphy,
        Canton, Mississippi.

          I remember in the 1970's and 1980's, when strict adherence to 
        base limitations was important, staff from the old ASCS (pre-
        FSA) would have to come out and measure what was allowed. 
        Because of my desire to maximize the allowed program crops to 
        be planted, split fields often were needed. For example, I 
        might be allowed to plant some odd number, such as 52 feet, in 
        the last corn field. And at times planting was delayed until 
        this measurement occurred. Soybeans took the balance.
          Later a tolerance factor was introduced, I think 5% was 
        implemented, and most times we could make whole fields fit the 
        allocation. What an improvement!
          As we all know, the years of transition to planting 
        flexibility have allowed farmers to focus on fields and crops 
        as the priority, not arcane government bases which were 
        established decades earlier.

        Rob Joslin,
        Sidney, Ohio.

          When I started farming in the late 70's, I felt I had to 
        plant corn to be protected against market fluctuations. The 
        only real safety net at the time was the deficiency payment 
        program, which was not available to oilseeds. Also at the time, 
        the conventional wisdom in the farm policy arena was that `corn 
        was king.' The meaning was clear that the national policy was 
        screaming out the message to farmers that we needed more corn 
        and coarse grains. I responded by planting all I was allowed 
        and participating to the fullest extent of my eligibility.
          The Freedom to Farm legislation in the mid-1990's allowed me 
        to keep that valuable corn base as a hedge against the loss of 
        deficiency payment protection while at the same time chase 
        market signals instead of farm policy. My crop rotation has 
        benefited as well and I've been able to adjust plantings 
        without fear of losing valuable crop acreage base history.

        An Ohio farmer, forwarded by Rob Joslin.
                                 ______
                                 
                        Comment of Laura Gleason
    Date Submitted: Friday, May 18, 2012, 1:52 p.m.
    City, State: Charlotte, NC
    Occupation: Information Technology
    Comment: Please support small farmers! They are small business 
owners, they produce great food, an essential part of life, and they do 
this for their local communities. Local farmers are key to better 
agriculture, better nutrition, and reduced impact on the environment. 
Thank you for your consideration.
                                 ______
                                 
                        Comment of Donna Gleeson
    Date Submitted: Tuesday, May 15, 2012, 3:30 p.m.
    City, State: Lebanon, NH
    Occupation: Registered Dietitian
    Comment: I recently read a quote by FDR which resonated with me:

        ``The nation that destroys its soil destroys itself.''

    Industrial agriculture with its emphasis on genetic modification, 
pesticide use, and monoculture not to mention significant animal abuse 
is not only destroying our soil, but our health and our future.
                                 ______
                                 
                        Comment of Karen Gleeson
    Date Submitted: Friday, May 18, 2012, 3:18 p.m.
    City, State: Northport, ME
    Occupation: Retired Social Worker
    Comment: I am a home gardener and a vegetarian, who encourages 
local agriculture in my food buying. I want the food production in the 
U.S. to be subsidizing organic and zero-chemical agriculture. To use 
broad use chemicals as fungicides, insecticides and fertilizers is to 
(1) harm our planet and (2) create an untenable and unsustainable 
system that only increases the need for ever-more-harmful and expensive 
systems. Additionally, I do not want my tax dollars spent to encourage 
GMO crops. Over many millennia farmers have been innovating new crops 
and domestic animals. Now, however, we have crops whose only aim is to 
increase the profits for the chemical companies such as Monsanto and 
Dow. This cannot and should not be subsidized with our tax dollars, and 
in fact should be actively banned by our government.
    I know from my own experience of my food coop and the Maine 
Farmland Trust, of which I am a member, that it is possible to sustain 
agriculture on ecologically sound lines, in a state where the winters 
are long and the growing season is short. We have been doing it for 
centuries. This is what the Dept. of Agriculture should be assisting to 
continue.
    Thank you.
                                 ______
                                 
                       Comment of Allison Glennon
    Date Submitted: Friday, May 18, 2012, 2:21 p.m.
    City, State: Malibu, CA
    Occupation: Writer/Filmmaker
    Comment: Non-toxic food (food without pesticides or herbicides) is 
critical to a healthy life. We cannot keep eating poison and ignoring 
the long term degradation it has on our bodies.
                                 ______
                                 
                       Comment of Jessica Glines
    Date Submitted: Friday, May 18, 2012, 4:37 p.m.
    City, State: Salt Lake City, UT
    Occupation: Sales
    Comment: I believe that we deserve the right to know what is in our 
food supply and have the opportunity to provide the food we feel is 
best for our families. I urge you to label GMO's and allow us to decide 
what we eat.
                                 ______
                                 
                      Comment of Catherine Glomski
    Date Submitted: Friday, May 18, 2012, 11:26 a.m.
    City, State: Hubbard Lake, MI
    Producer/Non-producer: Producer
    Type: Dairy
    Size: Less than 50 acres
    Comment: Dear Representative Dan Benishek:

    Agriculture has been the steady segment of Michigan's economy and 
has been the rock in our nation's economy. It's funny, that the one 
business that has the most growth potential is one that also has the 
most consolidation and cuts. We need to invest food production and in 
new farmers.
    We need you to speak up for Michigan, Debbie Stabenow isn't.
            Thank you,

Catherine Glomski,
 Agricultural Entrepreneur.
                                 ______
                                 
                         Comment of Jackie Glos
    Date Submitted: Tuesday, April 24, 2012, 1:58 p.m.
    City, State: Cambridge, MD
    Occupation: Retail Sales
    Comment: Farming is the most industry for without food we are once 
again at the mercy of foreign contaminates--God gave us this good Earth 
that our forefathers ventured to in Faith--that we might have plenty. 
With our technology we have been able to create food for impoverished 
countries that they might have food abundantly as well. Farming is our 
main source of Life well Lived. The life lessons of hard work and 
prayer are always found on our farms--Life cycles of animals and plants 
remind us of our realities and extend to other industries. God Bless 
the American Farmer.
                                 ______
                                 
                        Comment of April Glover
    Date Submitted: Sunday, May 20, 2012, 1:24 a.m.
    City, State: Los Angeles, CA
    Occupation: Designer
    Comment: We deserve to know what is in the foods we are putting 
into our bodies as well as have access to local grown meats and 
produce. It is appalling to me how large corporations are allowed to 
continue to treat animal in humanly, pump them full of antibiotics 
(which create super bugs), and pour pesticides all over our produce. 
The American people are becoming unhealthier and obese by the day. Its 
time for change!

April Glover.
                                 ______
                                 
                        Comment of Michael Gnat
    Date Submitted: Friday, May 18, 2012, 4:25 p.m.
    City, State: Brooklyn, NY
    Occupation: Actor--Editor
    Comment: The farm bill should support local farmers, not huge 
agribusinesses, and promote the growth and distribution of healthful & 
natural food products.
                                 ______
                                 
                         Comment of Mary Gocher
    Date Submitted: Friday, May 18, 2012, 4:26 p.m.
    City, State: New York, NY
    Occupation: Actor
    Comment: I am extremely concerned about cutbacks that would reduce 
the food stamp program or any measure that would adversely impact the 
poor, the disabled, children and the elderly. Please make sure that 
there is no reduction in benefits to this vulnerable segment of our 
society.
    Thank you.
                                 ______
                                 
                        Comment of Galen Gockel
    Date Submitted: Saturday, May 12, 2012, 1:01 p.m.
    City, State: Oak Park, IL
    Occupation: Retired Educator
    Comment: Please fully fund Emergency Food Programs and the SNAP 
program. These are humanitarian programs, but also important to the 
general economy.
                                 ______
                                 
                        Comment of Marcia Godich
    Date Submitted: Friday, March 16, 2012, 6:41 p.m.
    City, State: Trafford, PA
    Occupation: Retired University Professor
    Comment: I believe that a distinction needs to be made: statistical 
and anecdotal evidence shows that the aim of small farmers is to 
support their families through their farms--which means they have to 
care about the long term health of their farm and the quality of their 
products; agribusinesses, on the other hand, have the bottom line of 
immediate profit to their stockholders as their goal, often running 
counter to the long term or health or safety of either the farms or 
those who buy their produce. Since the role of the Federal government 
is to protect its citizens, not merely minority interests (who have 
more than enough reserves, if their profit reports are anything to go 
by!) Since large corporations operate (in their own terms!) on the 
premise of capitalist enterprise, they should expect to survive or fail 
by their own efforts. Government should limit its support to small 
farmers, to offer disaster relief and incentives toward the use of 
sustainable, humane methods, maintenance of genetic diversity rather 
than genetic modification, minimization of the use of antibiotics, 
hormones, or other chemicals.
                                 ______
                                 
                         Comment of Judy Goebel
    Date Submitted: Saturday, May 19, 2012, 4:18 p.m.
    City, State: Richfield, MN
    Occupation: Retired
    Comment: We need sustainable agriculture that supports families, 
not big corporations. To achieve that, we need to get rid of subsidies 
for agrobusiness. We need to stop letting gmo plants become part of our 
food stream.
                                 ______
                                 
                       Comment of Michael Goebel
    Date Submitted: Friday, May 18, 2012, 12:26 p.m.
    City, State: San Marcos, TX
    Occupation: Doctor
    Comment: Monsanto needs to be shut down, and the board jailed for 
biological crimes. The pollution of the biosphere by their GMO-crop 
pollen is a global crime against humanity and many other species. Of 
Course organic foods should be natural, organic, and so labeled!
                                 ______
                                 
                      Comment of John Goeckermann
    Date Submitted: Friday, May 18, 2012, 1:28 p.m.
    City, State: Grants Pass, OR
    Producer/Non-producer: Producer
    Type: Forestry
    Size: Less than 50 acres
    Comment: Just be sure to protect water supplies for migratory 
birds--do not steal water for potatoes from the Klamath bird refuge . . 
. There are no endangered potatoes, but the Pacific Flyway is crucial 
to birds, and helps farmers by allowing birds to stay alive to eat the 
bugs that threaten crops.
                                 ______
                                 
                       Comment of Martin Goedken
    Date Submitted: Friday, May 11, 2012, 6:59 p.m.
    City, State: Conception Jct., MO
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: 50-150 acres
    Comment: Please work toward a farm bill that invests in the next 
generation of farmers and ranchers--guarantee $25 million per year in 
mandatory funding for the Beginning Farmer and Rancher Development 
Program. We need a national strategy and commitment to support 
beginning farmer and ranchers entering agriculture. With an aging farm 
population, now is the time to invest in the future of American 
agriculture by nurturing new agriculture start-ups.
    Also, please limit payments to the very large land owners. Thanks.
                                 ______
                                 
                      Comment of Elizabeth Goertz
    Date Submitted: Saturday, May 19, 2012, 10:01 a.m.
    City, State: Lewisburg, WV
    Occupation: Food Sales/Gourmet
    Comment: Please support organic farming practices. Our current 
large scale commercial farms are unsustainable and produce food that is 
low nutrition. This is a contributing factor in the poor health of 
Americans.
                                 ______
                                 
                         Comment of Linda Goetz
    Date Submitted: Friday, May 18, 2012, 2:30 p.m.
    City, State: Santa Monica, CA
    Occupation: Executive Assistant
    Comment: I have developed many food allergies since the USA has 
allowed companies to create genetically modified foods. Dairy, corn, 
cruciferous vegetables--I have developed allergies since 1999. Please, 
keep our food Real, Organic and delicious. Apples and tomatoes taste 
like sand now unless they're organic. Bee populations are dying due to 
pesticide use. What will our grandchildren be eating?
                                 ______
                                 
                        Comment of Laurie Goguen
    Date Submitted: Sunday, May 20, 2012, 4:27 a.m.
    City, State: San Francisco, CA
    Occupation: Chef
    Comment: The farm bill must be overhauled. It must put the health 
of the land and the health of our people first. Organic, sustainable 
agriculture needs to get proper funding, and subsidies/insurance safety 
nets for commodity crops must be abolished. Crops like soy, corn and 
wheat are responsible for epidemics like obesity and malnutrition. 
Fruits and vegetables are what keep people healthy, and the farmers who 
grow these crops in an environmentally responsible manner should get 
the full financial support of our government. You want to keep down 
health care costs? Stop subsidizing corn, wheat and soy!
                                 ______
                                 
                        Comment of Gary Goldberg
    Date Submitted: Saturday, May 19, 2012, 6:33 a.m.
    City, State: Richmond, VA
    Occupation: Physician
    Comment: Good nutrition is one of the basic components of good 
health and a fundamental human requirement in supporting the quality of 
life of a human being. This bill should be fair and should assure the 
greatest benefit for the most people in America. Please pay close 
attention and make this a bill that works to improve the quality of 
life of all Americans!
                                 ______
                                 
                       Comment of Halina Goldberg
    Date Submitted: Friday, May 18, 2012, 9:17 a.m.
    City, State: Bloomington, IN
    Occupation: Academic
    Comment: This set of laws was created under very specific 
circumstances and has served its purpose. We must reevaluate what works 
and what needs to be changed in order to make healthy food more 
available and affordable for people of all incomes and to allow farmers 
more choices in what they want/need to produce.
                                 ______
                                 
                       Comment of Sarah Goldberg
    Date Submitted: Monday, May 14, 2012, 4:18 p.m.
    City, State: Pittsburgh PA
    Occupation: Dispute Resolution Specialist
    Comment: Please preserve the food assistance programs, SNAP, TEFAP, 
CSFP, and FFVP. These programs are to help our neighbors (and 
ourselves) in times of misfortune. When volunteering at the Squirrel 
Hill Food Pantry, I have seen people wait in line for food made 
available through these programs. The elderly, the disabled, the job 
seekers, and the injured come to the pantry because their current 
circumstances mean that they and their families do not have enough to 
eat. While I am optimistic about our future, I know that anyone can 
find themselves in this situation. We have these programs to keep our 
community healthy so that individuals may recover from whatever 
misfortune has fell upon them and return to being productive members of 
our society. The United States did not welcome the tired, the poor, the 
homeless, or the tempest-tossed just to let them fall to tides of fate. 
These programs are not just expenditures, they are lifelines for our 
citizens. They should be a top priority for every state and 
accommodated in the budget.
                                 ______
                                 
                        Comment of Birdee Golden
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: San Diego, CA
    Occupation: AA in Surgical Pathology
    Comment: Every day we see that there is a rise in cancer and 
disease, much, I believe, due to the foods we eat--some that can't even 
be called food. It's time for a change. We need to get back to eating 
real, unprocessed, whole foods again. When my mother grew up on her 
parent's farm, no pesticides or GMO seeds were used and they had a high 
yield as long as they got rain. Food was called organic then--it was 
just food. What we are getting now is disgusting.
                                 ______
                                 
                         Comment of Gabe Golden
    Date Submitted: Saturday, May 19, 2012, 1:49 a.m.
    City, State: San Diego, CA
    Occupation: Film Producer
    Comment: How can you in good conscience allow subsidies to 
corporate farmers who grow nothing but a few crops while cutting $33 
billion from food stamps. Why not diversify our food supply by stopping 
big agriculture businesses from using genetically modified crops, and 
demand healthy soil and diversity in agriculture. They want a subsidy? 
Make them earn one by producing actual food. Should the U.S. really 
only grow corn that is turned into sugar that makes people obese and 
adds billions to our health care crisis. This cycle of insanity must 
stop.
                                 ______
                                 
                      Comment of Helen Goldenberg
    Date Submitted: Saturday, May 19, 2012, 2:55 p.m.
    City, State: Tamarac, FL
    Occupation: Retired
    Comment: Let's make farm policy to support small local family farm 
operations and operators. Let's support conservation of important lands 
for future generations. Let's try to support organic operations 
wherever possible so we don't have to ingest lots of pesticides and 
other chemicals. Thank you.
                                 ______
                                 
                      Comment of Laura Goldenberg
    Date Submitted: Friday, May 18, 2012, 9:38 p.m.
    City, State: Sebastopol, CA
    Occupation: Marriage, Family Therapist
    Comment: I belong to a community sustainable agricultural group and 
get weekly vegetables grown organically and sustainably in our local 
neighborhood. We save on gas through trucking food far distances, and 
we have varieties of food that you cannot get from GMO seeds. Please 
preserve small family farms, the heart of our country, and please 
protect us and future generations by not polluting seeds and crops with 
strains of GMO that we cannot fully know the repercussions of. Please 
represent the people and not large corporations. We need you and depend 
on you to represent us and not lobbyists for large moneyed interests.
                                 ______
                                 
                        Comment of Paul Goldman
    Date Submitted: Friday, May 18, 2012, 7:36 p.m.
    City, State: Las Vegas, NV
    Occupation: Owner, Small Business
    Comment: Please help your fellow Americans have access to a 
healthful food supply. We work hard, pay our taxes, help our families/
friends/neighbors and just want food that doesn't contribute to the 
increased rates of asthma, diabetes and obesity in our children! 
Thanks.
                                 ______
                                 
                       Comment of Ray Goldsberry
    Date Submitted: Friday, May 18, 2012, 3:12 p.m.
    City, State: Lowry City, MO
    Occupation: Retired Farmer and Construction Worker
    Comment: My feeling is that to much money is going to support the 
large producers that do not even live or work on a farm at the expense 
of the small farmer. The same formula used to support the small 
business should be used for farming. The small family farms of 300 
acres or less should be the ones to get the help from the farm bill. 
Also the people raising GMO crops should be completely eliminated from 
receiving any subsidies at all. These crops are responsible for 
destroying the bee population as well as having detrimental effects on 
the health of people because of the pesticides. If the bees are 
destroyed there will be no food period. Please think about the 
importance of your decisions to the future of the U.S.A. instead of the 
large companies that have almost taken over the farming industry. 
Thanks for your consideration.
            Sincerely

Ray Goldsberry.
                                 ______
                                 
                       Comment of Bruce Goldsmith
    Date Submitted: Friday, May 18, 2012, 12:54 p.m.
    City, State: Temple, GA
    Occupation: Software Manufacturer
    Comment: We need safe, organic, non GMO, well labeled food. organic 
fields must be kept safe from contamination caused by deregulation of 
dangerous food experiments. Please support local and family farms!
                                 ______
                                 
                       Comment of Cathy Goldsmith
    Date Submitted: Friday, May 18, 2012, 10:47 p.m.
    City, State: Berkeley, CA
    Occupation: Baker, Cooperative Retail Food Vender, Cafe Owner
    Comment: There is no single issue more important than how we feed 
our children. Mono cultures and pesticides will destroy our health and 
the health of future generations. Do the right thing and pass a farm 
bill that rewards good environmental practices, provides healthy 
lunches to our school children, and supports family farms.
                                 ______
                                 
                       Comment of Joan Goldstein
    Date Submitted: Saturday, May 19, 2012, 5:00 p.m.
    City, State: New York, NY
    Occupation: Meditation Teacher/Writer
    Comment: No GMOs, organic gardening, and support of health 
supporting farming and food rather than the food that is mass produced 
with no respect for the American people whose health is being badly 
affective by food additives and the effects they're having on the 
American public, especially on their children. The ``mysterious'' 
outbreaks of ADD, Asbergers, autism and other brain challenging 
diseases. Along with asthma, lactose intolerance is coming from foods 
that have been altered by tremendous greed, i.e., growth hormone for 
cows to produce more milk which not only affects the cows by 
transferring the hormones into the milk we drink, but also affects the 
udders by causing infections them with constant milking. The result of 
the infections is requires antibiotics to kill the infections to the 
udders caused irritations from over milking . . . and the beat goes on 
. . .
                                 ______
                                 
                       Comment of Susan Golightly
    Date Submitted: Friday, May 18, 2012, 2:28 p.m.
    City, State: Silver City, NM
    Occupation: Retired
    Comment: People have a right to know where there food comes from 
and how it was produced. And, most of all, they should be able to know 
what has been added to the food. Being able to grow or buy healthy 
whole foods should be a God given right.
                                 ______
                                 
                        Comment of Carissa Gomez
    Date Submitted: Tuesday, May 15, 2012, 12:06 p.m.
    City, State: Chicago, IL
    Occupation: Communications and Development Manager, Feeding 
Illinois
    Comment: Dear House Agriculture Committee Members,

    Feeding Illinois appreciates the opportunity to provide comments on 
the farm bill. As the state association, Feeding Illinois' eight food 
banks distributed 120 million pounds of food through a network of 2,000 
pantries, soup kitchens and shelters to an estimated 1.4 million people 
in Illinois in 2011. Currently, 11.1 percent of households in Illinois 
are food insecure, including 745,310 children in Illinois--23.3 percent 
of all children in the state. Our food banks served 61 percent more 
people at our pantries in the last fiscal year than the previous 3 
years, and we could not provide current levels of food assistance 
without significant support from TEFAP, nor could we meet increased 
demand if current funding levels and structure of SNAP and other 
Federal nutrition programs were eroded.
    We urge the House Committee on Agriculture to protect and 
strengthen SNAP in the farm bill, and keep in mind the following 
priorities:

  <bullet> Oppose proposals to cap or reduce funding for SNAP, restrict 
        eligibility, reduce benefits, or otherwise reduce access or 
        participation in SNAP.

  <bullet> Protect the adequacy of the SNAP benefit by restoring the 
        cut to the ARRA SNAP benefit increase.

  <bullet> Adjust the benefit amounts in a timely manner so it reflects 
        current food prices at the time of purchase.

  <bullet> Increase the minimum benefit so that elderly households 
        receive at the least an amount equivalent to the floor set in 
        the 1970s.

  <bullet> Fully allow SNAP benefits to be adjusted when high housing 
        costs consume more of a family's income.

  <bullet> Improve earnings disregards and other benefit computation 
        rules.

  <bullet> Extend the program to needy people now excluded from 
        benefits by arbitrary eligibility rules.

  <bullet> Allow all states to operate Supplemental Security Income 
        (SSI) CAP model that seamlessly enrolls SSI recipients into 
        SNAP, and encourage other data matching initiatives.

  <bullet> Provide adequate resources to states and community partners 
        for administration of SNAP and outreach and nutrition education 
        by restoring a greater Federal share in administrative expenses 
        and enhanced Federal matches for state investments in 
        operational improvement.

  <bullet> Encourage better nutrition by maintaining nutrition 
        education provisions and ensuring that retailer standards 
        balance adequate access to stores with a range of healthy foods 
        and moderate prices, as well as equipping all farmers' markets 
        with EBT capability.

    We also urge you to strengthen TEFAP and CSFP in the farm bill. 
Please include an increase in mandatory funding for TEFAP foods by 
providing a trigger that increases the funding level available for 
commodity purchases in times of high unemployment, and make TEFAP 
Storage and Distribution funds mandatory. In addition, we ask that the 
Secretary of Agriculture is given the authority to make bonus 
commodities available in times when unemployment rates are high. We 
also encourage the Committee to transition CSFP to a seniors-only 
program, while grandfathering in current participants, and expand 
eligibility for the program from 130% to 185% of the Federal Poverty 
Line.
    Once again, thank you for this opportunity to provide comments on 
the importance of Federal nutrition programs like SNAP, TEFAP and CSFP 
in the farm bill.
            Sincerely,

Carissa Gomez,
Communications and Development Manager,
Feeding Illinois,
[Redacted],
Chicago, Illinois.
                                 ______
                                 
                         Comment of Hilda Gomez
    Date Submitted: Friday, May 18, 2012, 5:13 p.m.
    City, State: Tucson, AZ
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: We are Bee Keepers and our business is greatly pacers by 
the use of GMO's and pesticides. Please ban these two evils in the USA. 
We can look out after ourselves without the use of GMO's and 
pesticides.
                                 ______
                                 
                        Comment of Caren Gontard
    Date Submitted: Friday, May 18, 2012, 10:14 a.m.
    City, State: Paonia, CO
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: As a biodynamic farmer in the arid West, I have grave 
concerns about the heavy weight given to Big Ag in our national farm 
policies. Small producers and particularly non-GMO and organic 
producers are critical to the health and security of our nation both 
from a food production view and energy and water security. We Must stop 
subsidizing big ag and we need strict labeling of All GMO products. 
People have a right to know and a right to choose.
                                 ______
                                 
                      Comment of Anthony Gonzales
    Date Submitted: Wednesday, May 09, 2012, 9:52 p.m.
    City, State: Dayton, NV
    Occupation: Construction
    Comment: I'm very shocked that we would allow farm bill that would 
reduce SNAP benefits by $36 billion. I believe that we can help the 
ones that are in need and that making a difference in their effects 
everyone. I don't think we would even do this to a third world country 
that asked for help. I know that we would give them the food they need. 
But I see when it comes to our fiends and neighbors and people I care 
about we can just tell them Sorry we have to cut the program because? I 
would not have a good enough answer to give them. I would have to walk 
away in shame that I could not help a fellow American.
                                 ______
                                 
                     Comment of Christine Gonzales
    Date Submitted: Tuesday, May 15, 2012, 11:39 a.m.
    City, State: Longmont, CO
    Occupation: Teacher
    Comment: Feeding the poor should be our number one priority. Making 
healthy, organic and inorganic fruits, vegetables, and dairy affordable 
for modest-income folks should be our second priority.
                                 ______
                                 
                      Comment of Crystal Gonzales
    Date Submitted: Sunday, May 06, 2012, 4:33 p.m.
    City, State: Bernalillo, NM
    Occupation: Not Employed
    Comment: So many people have lost their homes and still more are 
going homeless. So many things have been taken away from the needy. 
Don't cut their food supply short too. This is outrageous. The rich get 
richer and the poor starve while giving the rich more money.
                                 ______
                                 
                     Comment of Frank Gonzales, Jr.
    Date Submitted: Friday, May 18, 2012, 9:59 a.m.
    City, State: Plymouth, MI
    Occupation: Retired Engineer
    Comment: Let's concentrate on what makes for good nutritious food 
for our citizens and what's good for our environment rather than what 
makes the producer the most money!
                                 ______
                                 
                        Comment of Aida Gonzalez
    Date Submitted: Thursday, May 17, 2012, 2:06 p.m.
    City, State: P tzcuaro Michoacan, Mexico
    Occupation: Art Teacher
    Comment: I live in P tzcuaro, Michoac n State, in Mexico, and all 
the people in here would love to keep our soil free of pesticides and 
poisons that Monsanto try to sell in our country. There is a brave 
community in here called Cheran and their people are consciously 
protecting our original corn so all this new corporations won't ruin it 
with the transgenic seeds they try to introduce in our country.
    We would also love to see the end of arms business, selling to 
both, our government and the mafia in here. The result is 70,000 people 
killed in 6 years.
    Blessing for you and all the people working for the change.
                                 ______
                                 
                      Comment of Cynthia Gonzalez
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: Louisville, KY
    Occupation: Education Administration
    Comment: As a mother of two and proud KY native who buys organic 
and local as much as I am able, I need to see some serious commitment 
on the part of our governing entities to protect the food supply--from 
the small, family farms to the mass production system. There are 
dangerous trends in this country that appear to be driven by greed 
rather than protecting the public interest. That is a huge disconnect 
for me.
    Please consider your own children as you evaluate these decisions . 
. . and your mother, your grandmother, those you love. We should all 
have access to food that nourishes.
                                 ______
                                 
                       Comment of Katie Gonzalez
    Date Submitted: Friday, May 18, 2012, 1:00 p.m.
    City, State: Meridian, ID
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Fresh Local Food is very important to our health and the 
health of our communities. I value knowing what I am eating, where it 
came from and even who grew it! Please support local farmers, local 
economies and the preservation of our food systems!
                                 ______
                                 
                       Comment of Nicole Gonzalez
    Date Submitted: Friday, May 18, 2012, 12:45 p.m.
    City, State: Evanston, IL
    Occupation: Retail Buyer
    Comment: Please protect our food ways, farms, and health from the 
bottom lines and toxic decisions of big corporations. The way we eat 
today determines who we are as a nation, tomorrow. Thank you.
                                 ______
                                 
                     Comment of William G. Gonzalez
    Date Submitted: Thursday, May 17, 2012, 4:10 p.m.
    City, State: Suffern, NY
    Occupation: Student
    Comment: Thursday, May 17, 2012.

    United States House Representative Members:

    By this means I would like to ask the Honorable House of 
Representative Members to consider providing educational incentives to 
new farmers and beginner farmers, so they can achieve a higher 
education in agriculture, at Colleges and Universities in the United 
States. Also, to provide rural farming educational grants/scholarships 
for their children so the coming generation will secure the future in 
agriculture. Finally, I want to ask the Congress the implementation of 
farming financial moratoriums as insurance for those farmers that can 
be severely affected by climate changes (drought, tornadoes, floods, 
fires, etc.) Thank you, for attending this message.
                                 ______
                                 
                         Comment of Aimee Good
    Date Submitted: Friday, May 18, 2012, 6:47 p.m.
    City, State: Brooklyn, NY
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: Dear House Agricultural Committee:

    I grew up in Aroostook County, Northern Maine, the daughter of a 
4th generation potato farmer, Thomas Good, who is still farming 700 
acres of potatoes today on our 1,300 acre farm.
    I now live in New York City, And have begun to farm an acre of 
organic garlic on my childhood farm in Aroostook County with plans to 
expand production on my 40 acre parcel.
    I split my time between Maine and New York City and see the crucial 
importance of programs like the EQIP Transition to Organic program 
which I participated in to get my organic certification through the 
Maine Organic Farmers and Gardeners Association in 2011.
    This farm bill must support the development of local, regional food 
systems with the full endorsement of all provisions of the Local Foods, 
Farms and Jobs Act (H.R. 3286); support of new farmers and ranchers by 
the implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), and I strongly urge the Committee 
to vote to Maintain the EQIP Organic Initiative; as well as fully 
funding conservation programs, such as the Conservation Stewardship 
Program, and making sure that enrollment in any new insurance subsidies 
are tied directly to compliance with conservation programs.
            Thank you,

Aimee Good,
Good Dirt Garlic
[Redacted],
Brooklyn, New York, and
Monticello, Maine.
                                 ______
                                 
                       Comment of Philip A. Good
    Date Submitted: Friday, May 18, 2012, 7:40 p.m.
    City, State: Middletown, VA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I am a private producer for my family's survival. You must 
oppose all efforts to prohibit, complicate, poison, patent and 
capitalize that basic right. God gives food and sustenance! Men who 
interfere with that are Godless demons! Producing healthy food 
organically is a complicated task not an ignorant happenstance. Don't 
make it any harder, or illegal.
                                 ______
                                 
                        Comment of Anne Goodman
    Date Submitted: Wednesday, March 21, 2012, 12:43 p.m.
    City, State: Cleveland, OH
    Occupation: President and CEO, Cleveland Foodbank
    Comment: My name is Anne Goodman and I am the President and CEO of 
the Cleveland Foodbank. I am honored to be here representing food banks 
and agencies involved in the day to day fight against hunger, and I am 
grateful for the opportunity.
    There are 200 food banks covering every county in the United States 
who are members of Feeding America. Together, we serve more than 61,000 
pantries, shelters, soup kitchens, and other organizations that provide 
food directly to people in need.
    That need is currently greater than ever. Demand continues to 
increase even as we've begun to see a decline in unemployment. We are 
seeing new faces. Many have run out of unemployment benefits, exhausted 
savings, or had to take jobs paying far less than they were making 
before the recession. They have turned to pantries, the SNAP program--
or both--for help.
    But while our ability to meet need has been tested, the 
effectiveness with which food banks and Federal nutrition programs have 
responded provides me with great hope. It's critical that we continue 
to support these programs to ensure their ability to meet immediate 
need. But it's important to note, these investments also reap long-term 
benefits, preventing the higher health, education, and workforce 
productivity costs associated with hunger and poor nutrition.
    One of the greatest success stories of the recent recession is how 
effectively SNAP responded to protect families from hunger. SNAP 
expands in hard times, helping families buy groceries, and freeing up 
resources for other needs like rent, utilities, and transportation. 
SNAP is serving millions of people who can't find a job, can only find 
part-time work, or can't work because of a disability. Don't get me 
wrong, it's still a struggle. On average SNAP only allows $1.50 per 
person per meal. So in most cases, SNAP does not provide enough money 
to last recipients through the month.
    There are also many people struggling to put food on the table who 
don't qualify for SNAP. In both cases, they turn to emergency food 
pantries to fill the gaps. Any cuts to SNAP benefits or eligibility 
would only increase the overwhelming need we're already seeing.
    To illustrate this point, let me tell you about Cassandra, who has 
three children and is making $11 an hour working full time, and is not 
eligible for SNAP. She takes home $1,468 a month after taxes. She pays 
rent, utilities, puts gas in the car to get to work, and one of her 
children has asthma, requiring frequent doctor visits and daily 
medication. In Cleveland, her heating bills can go as high as $200 a 
month during the winter. There is no room for error for Cassandra. No 
room for a muffler that needs repairing or a few days off from work to 
care for a sick child. She makes choices. One month she pays the 
electric bill, the next it's the gas bill. Food is a genuine luxury.
    Because the Foodbank helped Cassandra supplement her meager food 
budget, she was able to pay both the electric and gas bills. Our food 
bank and the pantries we serve rely on The Emergency Food Assistance 
Program, or TEFAP, which supplied 27% of the food we distributed last 
year. TEFAP provides some of the most nutritious food we distribute, 
such as milk, green beans, and chickens. Unfortunately, unlike SNAP, 
TEFAP does not automatically grow when need grows. In fact, TEFAP 
actually declined markedly when we needed it most--falling 30 percent 
in 2011--because strong agriculture markets led to fewer bonus 
purchases. No other sources are increasing to fill that gap, and more 
Federal TEFAP support is urgently needed.
    In addition to emergency food, we continue to develop programs to 
better meet our clients' needs. One of those areas is nutrition. In 
2011, 28% of the food we distributed was produce. We are working on a 
project to allow local farmers to blast freeze their product and sell 
it year-round. A portion would be donated so our food bank could 
distribute frozen fruits and vegetables throughout the year.
    Providing healthy food is important, but sometimes people don't 
know how to prepare it. I've handed out produce countless times where a 
client didn't know what to do with something like leeks or a turnip and 
passed it over. But, when we provide recipes and samples, people are 
informed and make different choices. We educate clients about how to 
grow, cook, and shop for healthy food on a limited budget. We use 
community gardens, tastings, and demonstrations to show the impact of 
nutrition on health and how good healthy food can taste.
    Another area where we're evolving to meet our client's needs is the 
growing senior population. We deliver food boxes to several senior 
programs through the Commodity Supplemental Food Program. I talked to a 
woman at one site about how hard it is to take 2 busses to get to the 
nearest grocery store. Even then, she was only able to carry two bags 
home. When we could distribute the CSFP food package to her once a 
month it was a God send.
    I've spent time with her, and I wish you could too. I urge each of 
you to visit your local food bank. Decisions that are small numbers in 
the Federal budget have such an impact on real people.
    Feeding the hungry is not a partisan issue--it is a collective 
responsibility, indeed a moral responsibility. We have the power to 
make sure people like Cassandra don't have to choose between food and 
heat for her family, and that an elderly woman isn't home alone without 
groceries.
    With our nation focused on deficit reduction, I am here to plead 
with you not to cut these programs. I urge you instead to make small, 
targeted investments to enable food banks like mine to better meet the 
need. With that, I offer these recommendations.
    Protect SNAP from cuts and harmful policy changes. This program is 
working as intended to provide benefits that are timely, targeted, and 
temporary. I can tell you for certain that charity could not make up 
the difference if SNAP benefits or eligibility were cut.
    Increase the funding for mandatory TEFAP, and set aside a portion 
of the specialty crop purchase requirement to go specifically to food 
banks. The farm bill should also clarify USDA's authority to make TEFAP 
bonus purchases when the need for food assistance is high, not only 
when agriculture markets are weak.
    Finally, make CSFP a seniors-only program like we did in Ohio and 
which it already is in practice. Nearly 97% of participants are 
seniors.
    Let me close by telling you about a special woman who has been 
visiting a food pantry for several months. She sent us a check for $5 
over the holidays. Even with scarce resources, she made the sacrifice 
because she wanted to do her part.
    I am confident that even in a time of limited resources, we too can 
make decisions that reflect our shared value of helping our neighbors 
in need.
    Thank you again for your time.
                                 ______
                                 
                        Comment of Arifa Goodman
    Date Submitted: Friday, May 18, 2012, 2:36 p.m.
    City, State: San Cristobal, NM
    Occupation: Psychological Counseling, Retired
    Comment: Dear members of the House Committee on Agriculture:
    I ask you to support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Big Agribusiness has a stranglehold on how food is produced in 
America today, to the detriment of our soil, water and air and 
destructive to our health. The current policies of the government, 
designed by and beholden to the Agribusiness industry (bio-engineering/
pesticide companies), are harmful to small family farmers, essentially 
wiping out a way of life that has been the foundation of rural America. 
It is clear that returning to organic agricultural practices will 
provide high yields without the high levels of toxicity we are now 
releasing into our environment and into our bodies. With a return to 
sound organic agricultural practice, health costs will decrease as 
environmentally caused cancers decrease, and our soils and rivers will 
be renewed and replenished, supporting vibrant and healthy eco-systems. 
It's time to put the interests of the people and the land above the 
interests of the bio-chemical agriculture industry.
    Thank you.
                                 ______
                                 
                        Comment of Ellen Goodman
    Date Submitted: Friday, March 16, 2012, 8:34 a.m.
    City, State: East Providence, RI
    Occupation: Retired College Professor
    Comment: First, I support my local food bank, and I know they are 
struggling right now to meet the needs of my community. I ask that you 
pass a strong farm bill that protects and strengthens programs like 
TEFAP, SNAP, and CSFP. These programs are a lifeline to the millions of 
Americans struggling with hunger, and I urge you make them a priority 
in the next farm bill.
    Also, I urge you to invest in small, sustainable agriculture that 
employs organic farming methods. We need to diversify the dominant 
areas supported by the government. We need NO monoculture, much less 
dairy and cattle, less soy, less corn. Our current big agricultural 
farming methods are depleting the soil and reducing the nutritional 
value of our foods.
    Finally, farm animals need humane treatment. The horrific lives of 
factory farm animals cannot help but deplete food value. I urge you to 
support bans on battery cages and confinement crates. I urge you to 
curb the influence of the dairy and cattle lobbies. Please work to 
strengthen organic, humane, and small, sustainable farming methods.
    Thank you for your consideration.
            Sincerely,

Ellen Goodman.
                                 ______
                                 
                      Comments of Margaret Goodman
    Date Submitted: Saturday, April 07, 2012, 5:20 a.m.
    City, State: Glen Mills, PA
    Occupation: Retired Computer Programmer
    Comment: Please help and encourage farmers to grow sustainably 
without GMO crops. Factory food is not nutritious!
    Date Submitted: Friday, May 11, 2012 12:51 p.m.
    Comment: I want SNAP, TEFAP, and CSFP protected. Help us build a 
movement to protect and strengthen programs that put food on the table 
for hungry Americans! Our country's security is in jeopardy if its 
populace is hungry.
                                 ______
                                 
                      Comment of Heather Goodwater
    Date Submitted: Friday, May 18, 2012, 5:22 p.m.
    City, State: Minneapolis, MN
    Occupation: Student
    Comment: As you consider this farm bill, please support local and 
organic consumers as they are vital and integral to the community, 
environment and our health.
                                 ______
                                 
                        Comment of Karen Goodwin
    Date Submitted: Friday, May 18, 2012, 5:45 p.m.
    City, State: Chico, CA
    Occupation: Nutrition Educator
    Comment: I favor a farm bill that promotes fruit and vegetable 
consumption and production in a sustainable, environmentally supportive 
way. We need to encourage young people to become farmers. This bill 
should support variety in farming, not mono cropping. Local production 
and direct access to consumers must be emphasized. More jobs can be 
created if the production and distribution is focused on smaller 
producers.
                                 ______
                                 
                      Comment of Alexandra Gordon
    Date Submitted: Thursday, May 03, 2012, 11:26 a.m.
    City, State: Miami, FL
    Producer/Non-producer: Producer
    Type: Fruits, Greenhouse/nursery
    Size: Less than 50 acres
    Comment: We need a strong Farm Bill--one that protects and 
strengthens programs like TEFAP, SNAP, and CSF. We also think it's time 
to stop subsidies to large corporate farms and start helping small 
farmers. Please rethink subsidized food aid overseas that wastes $ on 
shipping and hurts local markets.
    Thank you.
                                 ______
                                 
                        Comment of Gloria Gorko
    Date Submitted: Friday, May 18, 2012, 4:40 p.m.
    City, State: Eastpointe, MI
    Occupation: Unemployed Admin. Assistant
    Comment: Big agricultural businesses have ruined our farming in the 
last 15+ years to say the least. Bayer and Monsanto should be held 
accountable for poisonous food, bad soil, water, and air. And the USDA 
should be ashamed that in America our food is so poor in nutrition. 
We're in the 21st Century only by the calendar, our lack of moral/civil 
responsibility to the land and people is unprecedented in history.
                                 ______
                                 
                        Comment of Janet Gornick
    Date Submitted: Thursday, April 05, 2012, 9:34 p.m.
    City, State: Cottage Grove, MN
    Occupation: Legal Administrative Assistant
    Comment: Please do not cut nutrition programs for the poor and 
needy women and children of Minnesota. Having the proper nutrition 
saves dollars in health care costs because of poor nutrition.
                                 ______
                                 
                         Comment of Joe Gorski
    Date Submitted: Sunday, May 20, 2012, 11:48 p.m.
    City, State: Ann Arbor, MI
    Producer/Non-producer: Producer
    Type: Bioenergy, Dry Beans & Peas, Field Crops, Other
    Size: 1,000+ acres
    Comment: Organics Work.
    They are good for your family and mine.
    They keep people healthier and more disease resistant.

Joe Gorski.
                                 ______
                                 
                        Comment of Harlyene Goss
    Date Submitted: Friday, May 18, 2012, 12:02 p.m.
    City, State: Methuen, MA
    Occupation: Medical Technologist
    Comment: We need the soils to be more nutritional so our food has 
more benefit. Also, eliminate growth hormones and antibiotics from our 
livestock. These and GMOs are compromising the public's health.
                                 ______
                                 
                        Comment of Grace Gosson
    Date Submitted: Sunday, May 20, 2012, 12:49 a.m.
    City, State: New York, NY
    Occupation: Student
    Comment: Every citizen deserves access to fresh and nutrient rich 
produce. Less than 3% of America's farm land is used to grow fruits and 
vegetables--this must be changed.
                                 ______
                                 
                       Comment of Debrin Goubert
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: Sewickley, PA
    Occupation: Physician
    Comment: Primary health support is financially smarter that 
addressing tertiary healthcare needs. This is the best sort of 
investment for the health of the population.
                                 ______
                                 
                        Comment of Deborah Gouge
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Pittsburgh, PA
    Occupation: Writer/Editor
    Comment: Please take this opportunity to shift the priorities of 
the farm bill away from financial support of large agricultural 
corporations (and the sugar, corn, and high-fructose corn syrup they 
produce) toward support for small farmers and organic production. 
Specifically, I ask you to do the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Voters are becoming aware that Congress too often places the 
interests of corporations above those of the public. In the past, the 
farm bill has been an egregious example of that. Please design a farm 
bill that puts the public good above corporate profits.
                                 ______
                                 
                      Comment of Christine Gouveia
    Date Submitted: Friday, May 18, 2012, 4:20 p.m.
    City, State: Livermore, CA
    Occupation: Collection Administrator
    Comment: The land belongs to all of us and you are allowing big 
business to destroy it with their chemicals and GMO's. We need to go 
back to healthy farming. These practices being forced into our food are 
causing illness to kids and adults all in the name of mass production 
and more profit for corporate farming. Family farming should never have 
been mowed down. Stop ruining our land. Your family's are being 
poisoned too. Is the worth the money you're being paid to be bought 
off. You should be ashamed.
                                 ______
                                 
                      Comment of John Gozdzialski
    Date Submitted: Saturday, May 19, 2012, 6:02 p.m.
    City, State: St. Louis, MO
    Occupation: Teacher
    Comment: Dear House Agriculture Committee:

    Because of the important role farmers play in our food system, 
taxpayers have supported a safety net for farmers for nearly 30 years, 
always in return for a guarantee that subsidized farmers will follow 
basic conservation practices in their fields to protect soil and water. 
This revolved around the basic realization that while Americans needed 
food, it was critical to employ conservation practices in order to 
preserve the economic viability and productivity of our farmlands and 
resources for the future.
    As the House Agriculture Committee prepares your draft of the farm 
bill, I urge you to restore the link between taxpayer-supported 
subsidies for crop insurance and conservation compliance protections 
that will protect the nation's water and land.
    This action is especially important as Congress considers 
eliminating direct payments, the major subsidy program that is linked 
to conservation compliance, and moving some of those funds to support 
increased subsidies for crop insurance, which lacks compliance 
requirements. Unless you help to reconnect crop insurance subsidies to 
conservation compliance, a significant part of farmers' incentive to 
follow conservation plans will vanish this year.
    Farmers need crop insurance as part of their safety net and the 
public needs basic conservation practices on farms to make sure that 
quality farmland and water can support future generations as well as 
the current needs of our country. We cannot accept sacrificing long-
term economic and environmental sustainability for short-sighted and 
short-term economic profits.
    Connecting eligibility for crop insurance subsidies to conservation 
compliance is fiscally responsible and ensures public subsidies for 
farmers' insurance premium payments align with the public's interest in 
basic conservation of our soil and water. Missouri consistently ranks 
in the top five for soil loss, losing more than 5 tons per acre per 
year, so we have a lot to gain.
    It's high time leaders in our government and in the food and 
agricultural industries placed the current and future health of its 
people as the top priority in their industries as opposed to quick and 
exorbitant profits.
            Sincerely,

John Gozdzialski.
                                 ______
                                 
                      Comment of Alexandra Grabbe
    Date Submitted: Friday, May 18, 2012, 9:04 a.m.
    City, State: Wellfleet, MA
    Occupation: Innkeeper
    Comment: I serve my guests only organic food. I am concerned that 
small farmers will be edged out. I am against GMOs and find it hard to 
find food that does not harm future generations. Get pesticides out of 
our food! Help the small farmer, not Big Ag. Thanks for your attention 
to this important matter.
                                 ______
                                 
                         Comment of Tom Grabow
    Date Submitted: Saturday, May 19, 2012, 5:12 p.m.
    City, State: Evansville, IN
    Comment: It is way past time to end the depression-era subsidies. 
Crop insurance should be provided by a private insurance market; the 
Federal government should get out of the business altogether. Markets 
can work much better if government allows a fair playing field and 
promotes sustainable practices. This should be done with much lower 
expenditures which would help reduce the deficit.
                                 ______
                                 
                         Comment of Harry Grace
    Date Submitted: Friday, May 18, 2012, 12:47 p.m.
    City, State: Buffalo, NY
    Occupation: Clergy
    Comment: I am a strong advocate of supporting small farms and 
especially the increasing number of organic growers. As a consequence, 
I am opposed to GMO produce and seafood entering into the nation's food 
supply--especially when not identified on labels.
    There are many things about the farm bill that need to be 
addressed, not thee least of which is the undue influence of large 
agricultural producers and agra-biz corporations.
    Please understand the I am in support of:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Richard Graf
    Date Submitted: Friday, May 18, 2012, 3:53 p.m.
    City, State: Whitefish, MT
    Occupation: Home Inspector
    Comment: Its time to clean up the agricultural/food supply in this 
country. If that cannot be done there should at least be sufficient 
labeling so that we can determine what we choose to eat.
                                 ______
                                 
                        Comment of Gail G. Graff
    Date Submitted: Saturday, May 19, 2012, 8:32 p.m.
    City, State: Thousand Oaks, CA
    Occupation: Retired
    Comment: Stop subsidizing farmers for corn to make high fructose 
corn syrup. Obviously, it's not a healthy addition to anyone's diet. 
Stop allowing our food to be poisoned with pesticides. You should be 
protecting people's health instead of making them sick and killing 
them! Canned goods also need to be changed due to PBA leaching into the 
food. And maybe you could act like adults and actually do the job of 
representing the people!
                                 ______
                                 
                     Comment of Bonnie Jones Graham
    Date Submitted: Sunday, May 20, 2012, 12:48 p.m.
    City, State: Billings, MT
    Occupation: Teacher
    Comment: I am a 4th generation Montanan! I am pleading with you to 
support legislation, including the next farm bill that supports small 
family farmers who want to continue to make a viable living with 
traditional farming practices that support sustainable production of 
``real food'', especially in our rural communities. I encourage you to 
vote against subsidies that benefit corporate farms. Big agribusiness 
should be able to survive on their own just like any other big business 
does without tax payer support. I also urge you to limit and regulate 
more strongly, CAFO producers and promote a more humane, 
environmentally sound process that does not endanger humans or 
communities in which CAFOs exist. I am also a Montana teacher and I see 
``day in and day out'' the horrific effects of our food inequalities: 
obese and unhealthy children whose diet consists of highly processed 
and cheap food with no nutritional value because fresh produce and 
``real'' food is too expensive for their families. When, in the United 
States of America, has nutritional food become a luxury item only for 
the wealthy? How can we accept in this country, that children's 
academic achievement, brain function, and physical movement is being 
fueled by chemicals, additives, and ``product'' instead of high 
quality, real food that supports Montana's historical and agricultural 
heritage . . . as well as our tradition of high quality educational 
outcomes? We feed animals in our zoos better quality food than what 
many Montana children are provided! We can't expect a child to perform 
at peak levels with ``modified'' fuel any more than we would expect our 
vehicles to perform with gas that has no ``energy'' value to the 
engine. Please, we are so, so much better than this!
            Sincerely,

Bonnie Jones Graham.
                                 ______
                                 
                        Comment of Diana Graham
    Date Submitted: Thursday, May 10, 2012, 10:34 p.m.
    City, State: Chicago, IL
    Occupation: Retired
    Comment: Every month I serve hundreds of hungry people at our food 
pantry. Cutting SNAP will mean hundreds of people will go hungry each 
month. Please don't cut SNAP, even families who receive food stamps 
sometimes need to come to our food pantry. Cutting SNAP will mean even 
less food for people already in poverty. Please don't cut SNAP.
                                 ______
                                 
                         Comment of Jon Graham
    Date Submitted: Friday, May 18, 2012, 5:08 p.m.
    City, State: Rochester, VT
    Occupation: Editor
    Comment: This farm bill is weighed far too heavily with support for 
industrial agriculture--support it no longer needs--with very little 
support for more sustainable and healthier options.
                                 ______
                                 
                 Joint Comment of Laura and Carl Graham
    Date Submitted: Sunday, May 20, 2012, 9:53 a.m.
    City, State: Jacksonville, FL
    Occupation: Physician Trainer, Full-Time Mother, and Wife; Welder, 
Father, and Husband.
    Comment: Please help us to remove the fine that organic producers 
have to pay to do the right thing and put a Heavy Fine on the factory 
farm and commercial food production industry for all of their 
pollution, poison and land damage. We need to get the subsidies 
redirected from those damaging our lives and put them toward those 
doing the right thing. Thank you.
                                 ______
                                 
                        Comment of Nancy Graham
    Date Submitted: Friday, May 18, 2012, 10:09 a.m.
    City, State: Eugene, OR
    Occupation: Registered Dietitian
    Comment: We need every means available to promote and ensure health 
and well-being. Our health is intimately tied to our food production. 
The fight against obesity and all of its consequences (heart disease, 
diabetes, etc.) requires that we provide nutritious foods.
                                 ______
                                 
                       Comment of Patricia Grames
    Date Submitted: Friday, May 18, 2012, 3:31 p.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: We need to have better, cleaner food available in this 
country for people like me who don't want pesticide and chemical laden 
food. Please include help for organic farmers in the farm bill. Also, 
please rein in some of the big corporate farms from some of their worst 
practices, like overuse of pesticides, allowing excess fertilizers to 
pollute water, and so. And feeding bad food to chickens, cows and pigs.
                                 ______
                                 
                       Comment of Lisa Grandstaff
    Date Submitted: Saturday, May 19, 2012, 8:49 p.m.
    City, State: Pittsburgh, PA
    Occupation: Electronics Technician, Factory Equipment Facility
    Comment: I am writing today to ask you to end the give-aways to 
Huge corporate farming entities and to restore whatever we can to small 
and medium-sized operations, as well as family-held and private farms 
and animal husbandry operations.
    While I understand that corporate agriculture is here to stay, 
there is NO Need for these entities to receive tax payer money, 
especially at this precarious time in our economic climate.
    I would like to see the full endorsement of the provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286) upheld and not stripped 
away.
    I feel that we need to maintain funding conservation programs, such 
as the Conservation Stewardship Program, and making sure that 
enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs.
    I feel it is important to move forward with the implementation of 
all provisions of the Beginning Farmer and Rancher Opportunity Act 
(H.R. 3236).
    And I whole-heartedly support maintaining the EQIP Organic 
Initiative.
    Thank you,

Lisa J. Grandstaff.
                                 ______
                                 
                       Comment of Anders Granning
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Milford, MI
    Occupation: Truck Repair Manager
    Comment: Please stop funding unsustainable forms of agriculture and 
allow this bill to emphasize and strengthen small and local farms for 
the betterment of our family's health and society. Our citizens and 
children are suffering from hunger and malnutrition. Please consider 
all of the economic factors such as mobility for food producers, 
programs to feed our nation's hungry, and education and implementation 
of balanced diets from healthy and sustainable sourced foods.
                                 ______
                                 
                          Comment of Ann Grant
    Date Submitted: Friday, May 18, 2012, 1:25 p.m.
    City, State: Sunnyvale, CA
    Occupation: Realtor
    Comment: Am always surprised when I visit my daughter in Great 
Britain by how much more care they take of their food sources. What we 
eat is so important to the health of our nation in all respects, please 
pass organic standards that will allow us to shop wisely.
                                 ______
                                 
                        Comment of Marsha Grant
    Date Submitted: Saturday, May 19, 2012, 9:56 a.m.
    City, State: Hotchkiss, CO
    Occupation: Retired
    Comment: The farm bill only supports corporate agriculture. We need 
to all support clean and fair food in this country produced by smaller 
family farms. They all struggle in the valley where we live. Have the 
courage to support small, sustainable agriculture in the new farm bill. 
The public is waking up to this issue and is watching.
                                 ______
                                 
                        Comment of Grace Gratsch
    Date Submitted: Wednesday, May 16, 2012, 10:58 a.m.
    City, State: Cincinnati, OH
    Occupation: Retired Teacher
    Comment: We need a farm bill that will provide initiative and 
support to the next generation of farmers. We need a bill that will 
make farming possible for families to work on the land and not be 
monopolized by huge corporations. Small farms on the heart of America.
                                 ______
                                 
                        Comment of Tammy Graves
    Date Submitted: Friday, May 18, 2012, 9:49 a.m.
    City, State: Richfield Springs, NY
    Occupation: Graphic Designer
    Comment: Give incentives to food stamps to buy fresh instead of 
processed foods. We need to have a farm bill foster food production 
where the infrastructure exists and the people live, i.e., Northeast--
keep the dairy farms so we can have a local source of milk instead of 
it coming in from Idaho or Wisconsin. Thank you.
                                 ______
                                 
                       Comment of Terrell Graves
    Date Submitted: Friday, May 18, 2012, 9:16 a.m.
    City, State: Alexandria, VA
    Occupation: Information Technology Manager
    Comment: It's Way past time to get out of bed with agribusiness and 
start to put good, natural, local food into the hands of Every 
American. We can make a good dent in local economies across every state 
in the union by helping to push food production back to the local 
level. It will also, curiously, help without epidemic health and 
obesity issues so the issues go beyond the purview of Agriculture.
                                 ______
                                 
               Comment of Herbert ``Herb'' R. Graves, Jr.
    Date Submitted: Friday, April 13, 2012, 9:35 a.m.
    City, State: Chapman, KS
    Occupation: Executive Director, State Association of Kansas 
Watersheds
    Comment: April 13, 2012

Hon. Frank D. Lucas,
Chairman
House Committee on Agriculture,
Washington, D.C.

    Dear Representative Lucas,

    The State Association of Kansas Watersheds (SAKW) supports funding 
of the P.L. 83-566 (PL-566) watershed program as an inclusion in the 
Conservation Title of the 2012 Farm Bill.
    Kansas like all states understands the difficult task of putting 
our country's financial future in order. Having said that, one of the 
dangers of all out war on existing programs, is the fact that sometimes 
we lose track of what programs truly benefits our country.
    The PL-566 program has seen a steady decline in funding since the 
late nineties. First it was the need to finance flood damage expenses 
then it was the need to curtail the practice of Federal earmarks to now 
some twenty years later a total denial of what really has worked for 
over fifty years. How many Federal programs can show a return on 
investment of 15-25% for each and every year since the early 1950's 
that the PL-566 program can.
    Today we have decided that this country can no longer afford to 
finance flood reduction programs and will just rely on paying more and 
more for flood damages as they occur. A case in point is the Missouri 
River disaster this past year. Just let the floods come and we will 
deal with them the best we can. The forefathers that thought prevention 
was much wiser to deal with must be turning over in their graves at the 
way we look at flood control today. The facts and figures of what the 
PL-566 watershed program has meant to Kansas and this country are 
substantial, defensible, and undeniable.
    We hear from USDA and NRCS that we must get out of the business of 
federally supported planning, operations and rehabilitation of flood 
reduction and send it back to the local folks. For the past fifty some 
years the local folks have done their part. In Kansas alone, millions 
of local dollars are being spent on maintenance of existing dams, 
design of new projects, securing of land rights, securing needed 
environmental mitigation, and now the Federal government wants to pull 
the plug and leave a job unfinished.
    Kansas has gotten a late start with rehabilitation of PL-566 dams, 
but our first is now complete, the second is under contract, and the 
third has funding secured. Four new dams are ready for NRCS 
rehabilitation planning, but FY 2013 funding for any phase of the 
program is uncertain at best.
    SAKW and the watershed districts of Kansas thanks you for your 
service and dedication to all phases of the PL-566 watershed program. 
Good luck in your efforts to secure a farm bill preserves and protects 
production agriculture into the near future.

Herbert ``Herb'' R. Graves, Jr.,
SAKW Executive Director.
                                 ______
                                 
                          Comment of Jeff Gray
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Grayson, GA
    Occupation: Graphic Design
    Comment: As a long-time Republican, I'm asking that you endorse the 
Local Foods, Farms, and Jobs Act, H.R. 3286, as well as the EQIP 
Organic Initiative. Please don't put more money into wasteful big ag 
farm subsidies. The future of food is with small farms husbanding land 
and animals with care. It's not in factories maximizing profits via 
scorched Earth environment policies and heavy government subsidies.
                                 ______
                                 
                          Comment of Mary Gray
    Date Submitted: Sunday, May 20, 2012, 12:48 p.m.
    City, State: Boone, NC
    Occupation: Writer
    Comment: We need a farm bill that will help us move to a 
sustainable agricultural system with ample support for small family 
farms and organic growers. With global climate change already 
happening, we need to sequester as much carbon as possible in our soils 
with no-till systems and programs to conserve and increase depth of 
topsoil.
                                 ______
                                 
                        Comment of Natalie Gray
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Ojai, CA
    Occupation: Voiceover Actor--Home Vegetable Grower
    Comment: Dear House Agricultural Committee,

    Food issues are of utmost importance to me, and I vote for 
representatives who think accordingly.
    I am writing to let you know that I want things to change for us 
here in the U.S. with regard to how farmers are subsidized and big 
agribusiness is given full reign over MY food. This is your food, too! 
Don't you realize that?! For God's sake, get real. You eat the stuff 
that they are putting out too! Even if you have tons of money and can 
afford to eat ``organic'', if sustainable farming and the small farmer 
are not supported, you can kiss any difference you feel you might be 
able to experience good-bye; not to mention the changes to our 
environment, etc.
    In that regard, I support:

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> The FULL endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    Thank you for your time and attention.
            Most sincerely,

Natalie Gray.
                                 ______
                                 
                         Comment of Pamela Gray
    Date Submitted: Tuesday, March 20, 2012, 1:10 p.m.
    City, State: Lubbock, TX
    Occupation: Mammographer
    Comment: I do not believe corporate farm operations should receive 
government subsidies. I believe this is a deplorable waste of 
government funds. These excessive subsidies could be eliminated to 
bring down the government deficit.
                                 ______
                                 
                         Comment of Pilar Gray
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Fort Bragg, CA
    Occupation: School Nutrition Services Director
    Comment: Funding to school meals needs more than the meager $0.06 
per meal we are to receive from the Healthy Hunger-Free Kids Act if we 
are to serve fresh, healthy food to this nation's children.
    I would love to see a financial incentive program for schools to 
purchase more regional, unprocessed agriculture products to support 
small, local farmers, boost local economies, and provide school 
children with not only the freshest foods possible but with also an 
increased awareness of where and how food is grown and the seasonality 
of produce.
    Thank you for your consideration.
                                 ______
                                 
                          Comment of Sue Gray
    Date Submitted: Saturday, March 24, 2012, 7:36 p.m.
    City, State: Geneseo, IL
    Occupation: Ag Consultant, Farm Owner
    Comment: The producers attending the Galesburg, IL, hearing 
presented great commentary from the farmer's perspective. There is one 
role of the farm bill that was barely mentioned, but that is absolutely 
crucial [to farmers, and] to the long term sustainability of 
agriculture, and for our dominant position in feeding the U.S. and the 
world--and that is as a foundation for ag research. The 2008 Farm Bill 
provided mandatory funding for four NIFA programs with $129M in FY 
2012, but there is no budgetary ``baseline'' in 2013 or beyond.
    The farm community near Galesburg places a high value on research. 
Just a few years ago, in a remarkable display of conviction, a group of 
concerned citizens comprising the Northwest Agricultural Education 
Foundation raised money to buy 80 acres of land which was leased to the 
University of Illinois for $1 dollar per year, in order to secure the 
Monmouth location as one of the University's experimental farms. Their 
actions and commitment speak volumes for their recognition of the value 
of agricultural research--a value that I urge you to also recognize and 
support in developing the upcoming farm bill, by restoring the crucial 
investment in ag research programs. Thank you.
            Respectfully,

Sue Gray.
                                 ______
                                 
                      Comments of Sylvia Ruth Gray
    Date Submitted: Friday, April 27, 2012 10:36 a.m.
    City, State: Salt Lake City, UT
    Occupation: Unemployed
    Comment: I want a farm bill which protects and strengthens programs 
like TEFAP and SNAP in the farm bill--which funds programs like TEFAP 
and SNAP that help vulnerable children, seniors, and low-income 
families. I also want small family farms to be encouraged. Ditto for 
organic farming and increased regulation for factory farms!
    Date Submitted: Friday, May 18, 2012, 4:49 p.m.
    Comment: I support small farm, organic, non-GMO agriculture on 
behalf of the soil and beneficial soil bacteria.
                                 ______
                                 
                         Comment of Yuriko Gray
    Date Submitted: Saturday, May 19, 2012, 9:09 a.m.
    City, State: New York, NY
    Occupation: Educator
    Comment: We eat only organic foods at home and only visit the 
doctor for required check-ups. Our health is an indicator of how 
organic foods help strengthen and maintain healthy immune systems thus 
lowering spending on medical needs. (But I still pay over $500 per 
month for health insurance as a government worker.) Please support 
organic foods for better health.
                                 ______
                                 
                        Comment of Mary Graziano
    Date Submitted: Saturday, May 19, 2012, 9:07 a.m.
    City, State: Galesville, WI
    Occupation: Self-Employed Piano Teacher
    Comment: Our nation's food policy is a sham, geared towards large 
corporate farms and production of monoculture, commodity crops that 
consumers cannot directly consume. We need to move toward an 
agriculture policy that promotes and supports the production of healthy 
food as locally as possible by sustainable practices.
                                 ______
                                 
                      Comment of Marian Grebanier
    Date Submitted: Friday, May 18, 2012, 7:08 p.m.
    City, State: Portland, OR
    Occupation: Retired
    Comment: I urge this committee to support H.R. 3286 and H.R. 3236 
which would give funds to where they are needed . . . farmers, smaller 
farms, local agriculture and the training of new farmers. New farmers 
are greatly needed at the current farmers are getting old and not being 
replaced at the rate our country needs to have the good healthful food 
it needs for good nourishment.
    I am completely opposed to the furthering of subsidizing, in the 
many billions, agribusiness using bad farming techniques, chemicals, 
GMOs and largely raising commodity crops. The new insurance program 
being offered is yet another boondoggle with no requirements for these 
businesses remediating soil erosion or doing wetland conservation.
    We need Congress to look out for the well-being of its land and 
people, not the agribusinesses that have been walking off with most of 
the support and money.
    Please do the right thing.
                                 ______
                                 
                       Comment of Giulio Grecchi
    Date Submitted: Tuesday, May 01, 2012, 4:46 p.m.
    City, State: Tucson, AZ
    Occupation: Retired--Volunteer Assisting the Poor
    Comment: We ask that you support a farm bill that provides for poor 
and hungry people both at home and abroad, offers effective help for 
those who grow our food, ensures fairness to family farmers and 
ranchers, and promotes stewardship of the land. We also urge that this 
farm bill target limited resources, such as subsidies and direct 
payments, to those farmers and ranchers who truly need assistance to be 
competitive and successful.
                                 ______
                                 
                       Comment of Loris A. Greco
    Date Submitted: Friday, May 18, 2012, 1:01 p.m.
    City, State: Franklin, WI
    Occupation: Retired Teacher
    Comment: We need safe, healthful, sustainable, and whenever 
possible, locally grown food. Can you help to set out the 
infrastructure that will make this possible. All institutions need 
reforming from time to time, don't they?

Lorrie Greco.
                                 ______
                                 
                         Comment of Carol Green
    Date Submitted: Friday, May 18, 2012, 6:10 p.m.
    City, State: Napa, CA
    Occupation: Grandmother
    Comment: Our grandchildren need us to be vigilant in providing 
healthy meals. We need you to be vigilant in protecting those 
interests. When families can't stay healthy eating GMO products 
disguised as foods and mostly not labeled as such, and mom's are too 
busy working AND caring for family and home, we all suffer the 
consequence with higher health care costs while our air, land and water 
are polluted with the poisons used.
    If you believe pandering to the almighty dollar will save your 
family, you would be misguided as these issues will cross into your 
family life as well.
    Please consider the health of our once great nation and do the job 
we are paying and praying for.
    Thank you for all you do to protect the health of our children.
                                 ______
                                 
                         Comment of David Green
    Date Submitted: Friday, May 18, 2012, 2:26 p.m.
    City, State: Berkeley, CA
    Occupation: Food Service Industry
    Comment: Small scale and family farms are only way to ensure 
healthy farmland for future generations, and that alone should be 
reason enough to pass a bill that ensures the future of sustainable 
agriculture. However, I imagine a plea that incorporates business 
interests would garner more political response, and thus, I feel that 
with the current depressed economy, family farms should be subsidized 
and farmers put back to work instead of money and political protection 
allocated to giant agriculture conglomerates whose practices have, for 
decades, put the local farmer and America's health far behind their 
ever-soaring profits. Politics, lately more than ever, seems to deal in 
the fast fix and the immediately gratifying, but on the current trend, 
there will come a day when big business owns all the seeds, when 
American farmland has become so poisoned and poorly cared for that we 
can't turn back. The health of the country calls for preemptive 
measures. I want my representative to think about what would be good 
for everyone and what would benefit the country even after their run in 
office is over.
                                 ______
                                 
                         Comment of Mary Green
    Date Submitted: Wednesday, March 21, 2012, 10:43 a.m.
    City, State: Arlington Heights, IL
    Occupation: Nonprofit Corporate Trainer
    Comment: I am a local activist for healthy food and environment. I 
am also a mother and concerned citizen. Please do the right thing and 
support in the strongest way the needs and rights of farmers and 
consumers.
    Local and regional food systems help create jobs and spur economic 
growth in rural and urban communities. Please support investment in 
this growing sector by including the Local Farms, Food, and Jobs Act in 
the next farm bill.
    The future of family farming and ranching in America depends upon 
ensuring that would-be new farmers have access to land, capital, and 
markets. Please support beginning farmers and ranchers by including 
Beginning Farmer and Rancher Opportunity Act in the next farm bill.
    Farmers depend on quality, cutting-edge research to stay 
successful--please make sure the next farm bill invests in this crucial 
work.
    Working lands conservation programs help farmers maintain 
productivity while protecting our air, water, and soil, protect these 
programs from unfair funding cuts!
                                 ______
                                 
                      Comment of Dorian Greenbaum
    Date Submitted: Friday, May 18, 2012, 10:00 a.m.
    City, State: Duxbury, MA
    Occupation: Researcher
    Comment: I urge you to support a farm bill that supports and 
encourages organic and non-pesticide/herbicide farming, using 
sustainable methods. Agribusiness does not need subsidies--level the 
playing field and give subsidies to the organic and non-chemical 
farmers who are growing food in a healthy and sustainable way. I no 
longer buy non-organic produce at supermarkets, and I strongly support 
local farmers and farmers' markets. Monsanto doesn't need any more 
money from you--my local CSA could sure use a minute portion of the 
billions you have shelled out to the companies that are ruining our 
food supply and poisoning our environment. Support heirloom vegetables, 
not GMOs!
                                 ______
                                 
                       Comment of Joyce Greenberg
    Date Submitted: Friday, May 18, 2012, 9:30 p.m.
    City, State: Highmount, NY
    Occupation: Realtor
    Comment: Support for family farms is vital to homeland security. 
Agribusiness has plenty of money, enough to grease a lot of Washington 
palms. Family farms produce quality products that I choose over the 
chemically contaminated, genetically engineered produce of 
agribusiness.
                                 ______
                                 
                        Comment of Harry Greene
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Littleton, MA
    Producer/Non-producer: Producer
    Type: Fruits, Livestock, Vegetables
    Size: 50-150 acres
    Comment: We're fed by the food industry that knows nothing about 
health, and treated by the health industry who knows nothing about 
food. I'd like to put my bid in to change that.
    With the obesity epidemic destroying our nation, promoting and even 
subsidizing real-food industries is leagues more important than 
subsidizing big oil.
    Which is more important, the quality of life of all Americans, or 
the depth of the pockets of those at the top of the pyramid? It all 
starts with what you put into your body. Do we want to spend millions 
on the real-food industry, or billions on cancer and diabetes 
treatments that could have been prevented?
    On top of health, investing in sustainable agriculture keeps the 
producer-market-consumer system alive. Industrial agriculture is headed 
on a crash course for plains of dust instead of fields of soil.
                                 ______
                                 
                         Comment of Jane Greene
    Date Submitted: Thursday, April 12, 2012, 10:44 a.m.
    City, State: Truth or Consequences, NM
    Occupation: Teacher
    Comment: Last year, while the number of people in poverty was 
increasing, the food coming to New Mexico's food bank decreased by over 
\1/3\. As you work on the farm bill, please do not forget that the 
economy has devastated many American families and this is the most 
basic form of help.
                                 ______
                                 
                       Comment of Vaughan Greene
    Date Submitted: Friday, May 18, 2012, 11:24 a.m.
    City, State: Panama City Beach, FL
    Occupation: Teacher
    Comment: I want access to more small farmer's markets. We need more 
small family farms to fill these markets. I like the diversity of 
plants and food that I can get from a local/small farm. Big-agriculture 
is only offering a few types of food that is bred for transport and not 
taste. Quit giving so much money to the big corporations.
                                 ______
                                 
                        Comment of Anne Greenia
    Date Submitted: Friday, May 18, 2012, 8:17 p.m.
    City, State: Tulalip, WA
    Occupation: Retired
    Comment: The health and welfare of the children, current and those 
to come, must be protected by those of us that are responsible for the 
protection of society as a whole.
    Even twenty years down the road is too late to start those 
protections, I feel.
    Please save our environment from pillage by the folks whose only 
interest is making the most money they can at the rest of our expense.
    Please support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you for your consideration in this matter.

Anne Greenia.
                                 ______
                                 
                       Comment of Alan Greenland
    Date Submitted: Friday, May 18, 2012, 2:49 p.m.
    City, State: Surprise, AZ
    Occupation: Purchaser
    Comment: Please stop subsidizing foods like GM corn that are making 
people sick and start subsidizing food that is good for people, the 
environment, and the farmers. Thank you.
                                 ______
                                 
                      Comment of Barry Greenstein
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Ft. Lauderdale, FL
    Occupation: Executive Chef
    Comment: It is vital that we have independent small family farms 
growing sustainable foods to not only keep our environment healthy, but 
to additionally supply the most diverse selection of grains, fruit and 
vegetables, beans, seeds and nuts available. Many varieties of grains 
and seeds have been reduced or eliminated due to genetic modification. 
The survival of our food system is dependent upon a fair farm bill, 
where organic, sustainable and small family farms are given an equal 
chance in the current food system. We cannot survive if the current 
large seed and agribusiness companies are allowed to monopolize, reduce 
and destroy our food diversity. I ask as a taxpaying citizen of this 
country to make sure mine and future generations are allowed a choice 
to have the widest variety of healthy foods at their disposal.
    Monsanto Corp. has been granted a patent on life through our 
Supreme Court justice system, and have the ability, by law, to 
completely monopolize the food seed banks in the world market. Heading 
in this direction will certainly benefit Monsanto, but will be a 
disaster for all of humanity. I urge you to pass a sensible farm bill 
so our farmers can survive, and even thrive in our current food system.
                                 ______
                                 
                      Comment of Cindy Greenstein
    Date Submitted: Thursday, May 03, 2012, 11:56 a.m.
    City, State: Baton Rouge, LA
    Occupation: Executive Director of the Louisiana Food Bank 
Association
    Comment: I am writing to encourage the House to not make cuts in 
the SNAP program. The Food Banks of Louisiana are doing their best to 
keep up with the needs of the hungry in Louisiana and if there are cuts 
to the SNAP program, it is doubtful they will be able to provide for 
all in need. Food insecurity increased to 16.7% of all Louisianans in 
2010. The food banks have seen an increase in those seeking out food 
that have never had to get food from them before. The food banks in 
Louisiana are funded 99% by private and corporate donations, grants, 
and the commodities program for which they provide distribution. If 
this program is cut, the burden will shift to the food banks but 
without an increase in their resources. I know this country needs to 
make cuts, but please don't take from a program that makes this a 
civilized country. Hunger is detrimental to the individual and the 
community. Thank you.
                                 ______
                                 
                        Comment of Alex Greetham
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: New York, NY
    Occupation: Student
    Comment: I want to be able to ensure that my food was grown in 
ethically sound conditions. When I buy free-range chicken and eggs, I 
actually want it to mean free range, being raised with plenty of room 
and fresh air, not just a few minutes outside of a cramped wire cage. I 
want my milk to not contain bovine growth hormone (rBGH) as I do not 
want pus in my milk, or the milk that children have with their cereal 
every day. And I want my burgers to be actual meat, none of this pink 
slime. I would like to see a transparent food industry, not one that 
tries to hide its actions. What has it got to hide? Also, I no longer 
want to see this conflict of interest as seen when the president hired 
Monsanto lawyer Tom Vilsack as the Secretary of Agriculture.
                                 ______
                                 
                         Comment of Sara Gregg
    Date Submitted: Sunday, May 20, 2012, 3:17 p.m.
    City, State: Lawrence, KS
    Occupation: Professor
    Comment: The time is long past when agriculture reflected the 
values of the people who rely on its produce, but Americans and their 
elected officials today can still correct for the misuse of our 
nation's agroecosystems. Please make our food safe for human 
consumption again, and allow our farms to provide healthy habitat for 
both their human and their animal residents.
                                 ______
                                 
                       Comment of Chris Gregoire
    Date Submitted: Friday, May 18, 2012, 7:59 p.m.
    City, State: King George, VA
    Occupation: Holistic Wellness Practitioner
    Comment: I completely support the farm bill. I am fed up with the 
Department of Ag robbing us of the chance to live healthy, vital lives. 
The special interest groups (MONSANTO) have run this country too long, 
and have all but destroyed the quality of life that once existed.
    For once . . . do what is right for this nation.
                                 ______
                                 
                        Comment of Carol Gregor
    Date Submitted: Friday, May 18, 2012, 5:41 p.m.
    City, State: Brooksville, ME
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: Organic farming is the best future for agriculture. The 
quality of our food has been lost to huge profit driven corporations. 
Let small farmers produce quality as we always have.
                                 ______
                                 
                       Comment of Andrew Gregory
    Date Submitted: Sunday, May 20, 2012, 2:27 p.m.
    City, State: Truckee, CA
    Occupation: Culinary Artist
    Comment: Please pass legislation that limits the power of 
commercial farming and empowers the growth of small-scale and 
sustainable agricultural practices. I would like to be able to feed my 
family with foods that are free of chemicals, hormones, and antibiotics 
and grown locally by local farmers and ranchers. Thank you!
                                 ______
                                 
                       Comment of Claire Gregory
    Date Submitted: Friday, May 18, 2012, 4:36 p.m.
    City, State: Bloomington, IN
    Occupation: Retired
    Comment: Citizen farmers who face many problems as they try to meet 
the need of community farms should receive financial support from 
Congress just as Congress has supported the multinational corporate 
``farmers''.
                                 ______
                                 
                        Comment of Ellen Gregory
    Date Submitted: Saturday, May 19, 2012, 8:13 a.m.
    City, State: Old Bridge, NJ
    Occupation: Marriage and Family Therapist
    Comment: Please consider an organic farm bill . . . I've had three 
people in my life in the last 2 weeks die of cancer. Our food supply 
has become our biggest toxin and I'm scared for the health of my 
children.
    In my area, there is a limited supply of organic food available and 
most of the time it is more expensive.
    We, the `in the know' people, know what greedy business and 
government has done to our food. And . . . by not advocating for 
labeled GMO food and siding with the producers who are killing us . . . 
there is no better way for your people to lose faith in a government 
that Is Not out for the protection of its citizens.
    There is not a more pressing issue then the food we put into our 
body and to deny your `people' the right to know what is in our food, 
and to restrict access to organic food is the biggest betrayal.
    I do not know how our country will recover if the U.S. government 
does not hear the voice of the food movement. All we are asking is to 
stop making us sick!
                                 ______
                                 
                      Comment of Jennifer Gregory
    Date Submitted: Saturday, May 19, 2012, 11:29 a.m.
    City, State: Truckee, CA
    Occupation: Accounting
    Comment: Please help the American people by passing some 
legislature that ensures the food we buy and eat is not going to harm 
them. Here in the greatest country in the world I am scared to feed my 
children what is sold as ``food''. Please support the small. Local, 
organic farms, and limit the power of the large commercial farms. For 
my kids' sake, please.
                                 ______
                                 
                         Comment of T. Gregory
    Date Submitted: Friday, May 18, 2012, 4:49 p.m.
    City, State: Sedalia, CO
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I grow organic vegetables not for profit but to give to my 
local food bank. I know what the quality of my food is and like to 
think I save lives with my food. I think it's Extremely important that 
our country's farm bill support All organic and sustainably grown food. 
I am adamantly opposed to Any GM/GE crops because of the poisons 
required to even grow it and it's impact to our planet in Every way. I 
support:

    (1) The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        subsidies are tied directly to compliance with conservation 
        programs.

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (4) Maintaining the EQIP Organic Initiative.

    I also think Congress should be looking at ways to allow 
communities to use vacant land for community gardens. This will have a 
Huge Positive impact on those communities by bringing people together, 
providing education for children to see how food is actually grown, and 
improving the health of our citizens! (obesity). It's time for YOU to 
think outside the box and find ways to support our country's health by 
providing incentives to do just that. I hope you do.
                                 ______
                                 
                         Comment of Doris Grey
    Date Submitted: Saturday, May 19, 2012, 11:11 a.m.
    City, State: Philadelphia, PA
    Occupation: Concerned Citizen
    Comment: Look at the statistics: one in four people in the U.S. 
will get cancer--look at the ``allowed amounts'' of herbicides and 
pesticides allowed in our food--now we are faced with genetically 
engineered crops! Yes, to eat means to ingest poisons, which of course, 
have no relation to how unhealthy we are as a nation. Please wake up 
and protect our food supply!
                                 ______
                                 
                      Comment of Deborah Greymoon
    Date Submitted: Friday, May 18, 2012, 1:46 p.m.
    City, State: Cascade, CO
    Occupation: Nurse
    Comment: Our farm policy needs to be restructured to care more for 
the people responsible for producing food rather than the large 
corporations that profit by their labor. Please do the right thing and 
vote for decent farm policy reform.
                                 ______
                                 
                        Comment of Audrey Grier
    Date Submitted: Sunday, May 20, 2012, 12:31 p.m.
    City, State: East Rutherford, NJ
    Occupation: Teacher
    Comment: It is time to consider the source of our food, which is in 
turn the source of our energy and health.
    Please develop, support and fund only legislation which enables 
family farms; organic farms; seed saving and diverse natural 
variations; responsible stewardship of the soil and water sources; and 
which discourages genetically modified seeds and organisms; corporate 
pressure to control seed distribution and farming methods which rob the 
soil of its richness.
    This is truly a matter of great scope and importance. What we eat 
affects our intellectual functioning, our physical health or sickness 
and the economics of our neighbors.
    Thank you for your attention and please take time to legislate in 
favor of health.
                                 ______
                                 
                        Comment of Brwyn Griffin
    Date Submitted: Sunday, May 13, 2012, 3:58 p.m.
    City, State: Port Townsend, WA
    Occupation: Organic Grocery Education Manager
    Comment: First of all, thank you for your service to our district. 
It's with the greatest urgency that I write. Our farm bill, for years, 
has supported big corporate agriculture, I'm assuming, in an attempt to 
make our food production system more efficient. BUT, we now realize 
that big ag is not the answer. We need to support localized, 
sustainable agriculture, give subsidies to small farmers, make the 
permitting procedures easier for cottage food industry, and think less 
globally and more locally. I'm asking Norm Dicks to consider all the 
Port Townsend Food Co-op owners, over 7,000, when considering how 
important healthy, nutritious foods are to his constituents. We want 
less packaged foods containing GMO ingredients and more locally grown, 
organic foods. Please help make this happen by voting to change our 
farm bill in support of more sustainable policies.
                                 ______
                                 
  Submitted Statement by Hon. Robert T. Griffin, Independence County 
                            Judge, Arkansas
    House of Representatives Committee on Agriculture:

    Chairman Lucas and Members of the Committee, thank you for the 
opportunity to be heard for the record. I am Robert T. Griffin, 
Independence County Judge in Arkansas. I am a farmer born and raised 
and owned a Federal grain warehouse for thirty-three years in 
Independence County before being elected to this position in 2011. I 
have observed, first-hand, the decline of the number of people able to 
continue in farming as the years have passed. While my farmer base 
shrank, the number of acres I handled increased. I witnessed the lack 
of interest as the children of farmers declined to continue in the 
footsteps of the older generation. I also myself declined to row crop 
farm due to the uncertainties of price, pests, and weather. The risk 
versus the return was too great although I continued participating by 
ownership of cropland and building a cattle herd on other acreage.
    Knowing the Federal budget is approaching being beyond control and 
the dangers of continuing without constraints could collapse our 
economy, I do ask you to consider the security of production of our own 
food in this nation before making cuts to the farm bill. We cannot 
become dependent on foreign powers controlling our food as they do our 
oil and to some extent, our manufacturing. Consider the costs analysis 
done by the research at the University of Arkansas and the small margin 
of net income within the production of crops. The numbers I have seen 
for this year show only a few crops yielding a net return if you 
consider most farmers rent land and take the rent from the return shown 
from that research. A high farm income is based on gross sales but the 
input expenses have risen out of control to limit the net margin to the 
farmer.
    High grain prices and low margins are creating even greater risk 
for our producers of food. Our nation's farmers have been resilient 
over the years yet they are advancing in age with no young to follow in 
many cases. You can increase this decline by making the risk more and 
endangering our internal production of foodstuffs across this nation by 
taking a cookie cutter, one-size-fits-all approach. Each region is 
different and we need diversity in the program. Rather than cut, we 
should retain the direct payments to buffer the risk. If anything, we 
need a price trigger to increase the direct payments as the cycle of 
prices decline and inputs remain high.
    The main point to consider is the total farm bill yields very 
little to the producers by assistance through direct payments. The 
total bill costs the budget $145 billion while the farm and commodity 
part is only $18.85 billion all of which is not directed to producers 
of crops. This is the only true safety net available to farmers to 
lower risk and ultimately keep them in business for the nation's food 
security. It is one of the smallest parts of the farm bill.
                              attachment 1
5-3-2012

Re: GSA waste to the system

    I was told recently by a Federal agency employee about running out 
of copy paper and getting it locally at a much cheaper price. It seems 
they are required to buy from and through General Services 
Administration but GSA didn't have the paper so they just went locally 
and purchased some. This intrigued me and I did a little pricing.
    Without trying to find the very cheapest prices, I simply obtained 
a 2012 GSA catalog and did an Internet search for office supplies. Here 
are my comparisons for common items and I found none that were higher 
than those quoted by GSA.
 GSA                  5000    copy paper          41.33
Quill                5000    ``  ''              34.99
Sam's                5000    ``  ''              29.88    save 38.32%
                                                           increase plus
                                                           save shipping
GSA                    12    G2 gel pens         18.85
Office Max             12    ``  ''              14.99
Sam's                  12    ``  ''              12.63    save 49.25%
                                                           increase plus
                                                           save shipping
GSA                     1    electric           562.23
                              stapler
Office Max              1    ``  ''             389.99
Sam's                   1    ``  ''             344.00    save 63.44%
                                                           increase plus
                                                           save shipping
GSA                     1    2 drawer file      490.69
Office Max              1    ``  ''             169.99
Sam's                   1    ``  ''             164.98    save 197.43%
                                                           increase plus
                                                           save shipping
GSA                     1    5 drawer file      685.91
Office Max              1    ``  ''             409.99
Sam's                   1    ``  ''             399.98    save 71.49%
                                                           increase plus
                                                           save shipping
GSA                     1    HP 29 X Toner      174.93
Office Max              1    generic toner      149.99    save 16.68%
                                                           increase plus
                                                           save shipping
    As we look for savings for the nation, let us first look at our 
gross waste in requiring and promoting use of GSA to cost our agencies 
valuable money that could go to save programs under the chopping block. 
At the least, we should start here to find a way to eliminate this 
waste. I did not try to find the worse of differences; this was a 
random look in general at common items and a comparison from the lowest 
price in percentage with the difference as an increase of cost.

Robert T. Griffin.
                              attachment 2



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
                      Comment of Kasandra Griffin
    Date Submitted: Friday, May 11, 2012, 12:01 p.m.
    City, State: Portland, OR
    Occupation: Public Health Advocate
    Comment: I would like to see a farm bill structured to improve the 
health and well-being of all Americans, which in turn would reduce the 
health care burden we are facing. I want to see a gradual decrease of 
commodity subsidies, especially corn, and a rapid increase in subsidies 
to fruits and vegetables, so that we can decrease their cost to 
consumers. I also want to see an increase in resource conservation 
programs, organic agriculture support, and direct marking assistance. I 
believe this type of a farm bill can improve rural economies, improve 
American's health, and protect our farmland and natural resources.
                                 ______
                                 
                      Comment of Stephanie Griffin
    Date Submitted: Thursday, May 10, 2012, 11:58 a.m.
    City, State: Tucson, AZ
    Occupation: Environmental Health Sciences Researcher
    Comment: The farm bill has the power to transform agriculture and 
communities, halt the obesity epidemic, and prevent environmental 
destruction from chemically-intensive factory farming practices. End 
subsidies for commodity agricultural products (they don't need the help 
any more than the oil companies do) and increase subsidies for small 
producers, especially organic farmers. Incentives matter. If farmers 
have a reason to produce healthful products and sell them locally, they 
will. America is watching!
                                 ______
                                 
                       Comment of Linda Griffith
    Date Submitted: Friday, April 20, 2012, 1:30 a.m.
    City, State: Altadena, CA
    Occupation: Educator (College Professor)
    Comment: The farm bill is long overdue for reform. I would like my 
tax dollars to go to helping small organic farmers learn best practices 
for using resources sustainably to produce healthy food. We should have 
stopped years ago adding such vast sums to the coffers of bloated huge 
agribusinesses that waste so much petroleum making fertilizers, 
endanger our health with pesticides and GMO seeds, and maintain their 
financial support from the government by the fundamentally corrupt 
intercession of lobbyists. We're falling like the Roman empire of yore, 
pulled down by the greed of a few. Turn this around: direct monies 
where they will help give jobs to many and produce healthy food. 
Please!
                                 ______
                                 
                      Comment of Frances Griffiths
    Date Submitted: Friday, May 18, 2012, 12:56 p.m.
    City, State: Raleigh, NC
    Occupation: Physician
    Comment: I am a retired physician, very concerned that our current 
system, fully influenced as it is by agribusiness, does not adequately 
take account of best practice as regards public health.
                                 ______
                                 
                       Comment of Richard Griggs
    Date Submitted: Friday, May 18, 2012, 2:41 a.m.
    City, State: Kannapolis, NC
    Occupation: USPS Manual Clerk
    Comment:The 2012 farm bill is the most important legislation to 
come before Congress. Sustainable, environmentally safe farming 
practices are absolutely vital to a healthy America, free of GMO and 
pesticide tainted food. If this were done right, we wouldn't need an 
Affordable Care Act.
                                 ______
                                 
                       Comment of Lynne Grimaldi
    Date Submitted: Sunday, May 20, 2012, 2:10 p.m.
    City, State: Cape Neddick, ME
    Occupation: Retired 1st Grade Teacher
    Comment: I endorse all of the input that Chellie Pingree has given 
to the farm bill. These include consideration and protection of small 
local farmers and organic farmers who work toward providing our 
communities with nutritious foods and provide the opportunity for 
citizens to improve their health, at reasonable prices, and defray the 
cost of health care, particularly children!
                                 ______
                                 
                          Comment of R. Grimm
    Date Submitted: Friday, May 18, 2012, 11:19 p.m.
    City, State: Berkeley, CA
    Occupation: Unemployed
    Comment: I am writing today as a constituent to ask that you help 
support the most strongest and sustainable farm bill possible.
    Specifically:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Reports from Washington D.C. about the farm bill negotiations have 
been quite outrageous. According to an editorial in the San Francisco 
Chronicle by Environmental Working Group's Ken Cook and Kari 
Hamerschlag, Republicans in the House Agricultural Committee have 
already ``voted to slash $33 billion from the food stamp program while 
leaving farm subsidies unscathed.''
    The editorial goes on to report on the latest agribusiness ``Trojan 
horse'' that gladly steals food from the mouths of the hungry to create 
a ``$33 billion new entitlement program that guarantees the income of 
profitable farm businesses. That's on top of $90 billion in subsidies 
for crop and revenue insurance policies.''
    If this weren't egregious enough, the Senate Agricultural Committee 
has already voted to cut $4 million from organic research funding and 
cut funding to support Beginning Farmers in half. This is outrageous 
and completely unacceptable!
    At the same time, the Senate Ag Committee has voted to get rid of 
wasteful subsidy payments. It has proposed to replace it with a new 
subsidized insurance program that leading sustainable agriculture 
advocates are calling rife with potential for fraud and abuse.
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with a multitude of taxpayer dollars while 
putting the land, soil and environment at greater risk.
    We can't allow this to happen. Please join me in supporting real 
reform and a healthy, organic future.
    Thanks as always for being my Progressive voice in our Nation's 
Capital.
                                 ______
                                 
                        Comment of Jacob Groell
    Date Submitted: Saturday, May 19, 2012, 12:10 p.m.
    City, State: Janesville, WI
    Occupation: Cheese Factory Worker
    Comment: Please support organic local foods and the opportunities 
for more local people to start profitable small farms. Industrial 
agriculture has a negative effect on us as individuals and as local 
communities. Thank you for your consideration.
                                 ______
                                 
                          Comment of Jen Groen
    Date Submitted: Friday, May 18, 2012, 11:45 a.m.
    City, State: Chicago, IL
    Occupation: Unemployed
    Comment: Farm policies should not promote excess production of 
crops, as this turns food into commodities and takes income from the 
farmers. Farm policies should encourage fair business trade, proper 
land management and healthy, diverse agricultures.
                                 ______
                                 
                         Comment of Stan Groff
    Date Submitted: Monday, April 02, 2012, 7:14 p.m.
    City, State: Medford, MN
    Occupation: Retired
    Comment: Dear Representative Walz:

    I am a citizen of Steele County and as such I strongly urge you to 
support existing funding levels for the Supplemental Nutrition 
Assistance Program (SNAP) within the farm bill.
    One in nine Minnesota citizens struggles to put food on the table. 
In Steele County, at least ten percent of the population or close to 
4,000 people are food insecure. SNAP is critical to maintaining good 
nutrition and health among our population.
    Economic studies in Minnesota show that people who lack access to 
adequate nutrition are more often chronically ill; children don't fully 
develop physically and cognitively and are more prone to fail courses, 
repeat grades and drop out of school before graduation. The cost of 
hunger's impact--largely as uninsured medical care--is conservatively 
estimated at $1.6 billion annually. Cutting SNAP or limiting access to 
it will increase charity care caseloads for the counties, which will be 
borne by local property taxes.
    Last but not least, every dollar of SNAP purchases goes into the 
local economy and generates $1.73 in economic activity. This is not a 
net expense; it is a net gain of 73% that supports jobs on Main Street. 
In a time of high unemployment, we cannot afford to add to the 
unemployed by reducing community economic assets of which SNAP is one.
    As a constituent and as a public servant, I strongly oppose cuts to 
critical anti-hunger programs SNAP, TEFAP as well as the Commodity 
Supplemental Food Program (CSFP) for seniors and Women, Infants and 
Children (WIC)
    For the sake of our neighbors who can't earn enough to get the food 
they need, it is important to maintain funding for programs that 
provide basic food assistance programs.
            Sincerely,

Stan Groff,
[Redacted],
Medford, MN.
                                 ______
                                 
                         Comment of Judy Grosch
    Date Submitted: Sunday, May 20, 2012, 4:06 a.m.
    City, State: Nokomis, FL
    Occupation: Retired/Grandmother
    Comment: Mr. Buchanan,

    Please help keep our food clean by composing a farm bill that 
excludes MONSANTO GMOs and supports small local farmers.
                                 ______
                                 
                        Comment of Cheryl Gross
    Date Submitted: Friday, May 18, 2012, 3:05 p.m.
    City, State: Sarasota, FL
    Occupation: Environmental Scientist
    Comment: The continued poisoning of our environment through the use 
of pesticides and the development and planting of crops genetically 
modified to produce or be resistant to pesticides is leading to a 
complete disruption of the environment that supports agriculture. To 
truly meet the requirements of the world's growing population it is 
vital to support a return to smaller farms and organic farming 
techniques that protect and enrich the environment and provide 
nontoxic, nutrient-rich foods. Monocrop culture, particularly with 
genetically modified crops, leads to depleted, poisoned soil, 
contaminated water and nutrient deficient food crops. The farm bill 
should reflect the growing knowledge that corporate farms and Monsanto 
GMO's are not in the public interest and should not have taxpayer 
support through agricultural subsidies. It is time to devote taxpayer 
dollars and agricultural support programs to smaller, organic farms and 
farmers that understand, respect and work with our environment to 
produce healthful crops for America.
                                 ______
                                 
                         Comment of Dena Gross
    Date Submitted: Friday, May 18, 2012, 1:44 p.m.
    City, State: Irvine, CA
    Occupation: Researcher
    Comment: Please do Not cut funding for organic research or 
supporting beginning farmers. If anything we need to increase our 
efforts to stop allowing big Ag to poison the American food supply. 
Cutting funding would be shameful.
                                 ______
                                 
                       Comment of Stacy Grossman
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: Bexley, OH
    Occupation: Student, Stay-at-Home Mom
    Comment: There is too much control of the food industry by a 
concentrated few. Indigenous food, indigenous people, and cultures are 
being dismantled and destroyed.
    Food has now become toxic and for-profit. It's time to get back to 
the basics: support local farmers and produce.
                                 ______
                                 
                         Comment of Earl Grove
    Date Submitted: Thursday, May 10, 2012, 10:00 a.m.
    City, State: East Canton, OH
    Occupation: Electrician
    Comment: To me, the trend toward smaller farms and locally grown 
produce is an excellent way to achieve both healthier food and reduce 
carbon emissions. Therefore, we need a bill that is friendly to 
America's small farmers allowing them to compete fairly with the mega 
farms. Locally grown produce tends to be more affordable and fresher 
when purchased from farmers markets rather than from larger chain 
stores and super-sized markets.
                                 ______
                                 
                       Comment of Jennifer Grove
    Date Submitted: Friday, May 18, 2012, 9:07 a.m.
    City, State: Omaha, NE
    Occupation: Cytogenetic Technologist
    Comment: I want organic fruits and vegetables at a reasonable cost. 
I would like to see fresh produce being a more economical choice for me 
and my family versus processed foods made from corn and soy!
                                 ______
                                 
                         Comment of Nancy Grove
    Date Submitted: Friday, May 18, 2012, 12:41 p.m.
    City, State: Atherton, CA
    Occupation: Physician
    Comment: Don't make taxpayers pay twice, first to subsidize 
producers of high-calorie, low-value crops (e.g., corn which is 
converted to high fructose corn syrup)and then to treat the effects of 
obesity, Type 2 diabetes and heart disease. Conventional agribusiness 
does not need our subsidy dollars; small farmers growing a variety of 
produce locally do.
                                 ______
                                 
                        Comment of Linda Groves
    Date Submitted: Wednesday, May 09, 2012, 9:44 p.m.
    City, State: Harleysville, PA
    Occupation: Small Business Owner
    Comment: Thank you for your attention to help people in this 
country get the kinds of foods they need for their best health. Good 
food is expensive, but it is the best medicine, when paired with some 
exercise. The best foods are raised by farmers who love the land, love 
to feed and nurture animals used for food, without chemicals, without 
GMO, just Old School food.

Linda Groves.
                                 ______
                                 
                       Comment of Janet Grubaugh
    Date Submitted: Tuesday, May 08, 2012 12:23 p.m.
    City, State: Mansfield, OH
    Occupation: Florist, Farmer & Director of a Food Pantry
    Comment: As a volunteer at a hunger program, I am writing to share 
my concern about hunger in Ohio. With unemployment still high and many 
Americans still struggling to make ends meet, anti-hunger programs are 
helping many of our neighbors just put food on the table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance. My 
program, Lucas Area Food Pantry in Lucas Ohio just outside of Mansfield 
Ohio serves about 1,000-1,100 families each month, so many more than we 
were serving when the recession began.
    A pantry client called and asked if distribution was Saturday and I 
told her it was the following Saturday, the following was the short 
conversation I had with her . . . `` `Are you okay?' I have 4 cans of 
soup and some soda crackers, I can wait.'' This was a family of 4 and 
they were going to wait a week for food! No, No, it's Not okay!
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP), The 
Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP), all of which are authorized in the 
farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization.
                                 ______
                                 
                    Comment of Catherine Gruenstein
    Date Submitted: Friday, May 11, 2012, 11:45 a.m.
    City, State: Oakland, CA
    Occupation: Nonprofit Sector
    Comment: Please support a 2012 Farm Bill that does not compromise 
the SNAP program--new environmental protections and benefits for 
sustainable agriculture should not come at the expense of my fellow 
citizens who need food assistance.
                                 ______
                                 
                         Comment of Sarah Guare
    Date Submitted: Friday, May 18, 2012, 10:34 a.m.
    City, State: North Adams, MA
    Occupation: Editor of Farming Books
    Comment: Please support small farmers, the majority of whom are 
practicing sustainable methods for the care of the Earth and everyone 
and everything on this planet. We need more people willing to think and 
work with a holistic viewpoint if we are to truly nourish ourselves.
                                 ______
                                 
                        Comment of Joanna Gubman
    Date Submitted: Friday, May 18, 2012, 7:12 p.m.
    City, State: San Francisco, CA
    Occupation: Fellow, in Solar Electricity
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    In general, I support promotion of organic farming practices, 
dismantling incentives for monocultures, dismantling incentives for 
specific foods such as corn and soy, protecting and incentivizing use 
of heirloom and non-engineered crops that help to preserve 
biodiversity, ensuring that farmers pay for water-intensive, energy-
intensive, and environmentally damaging farming practices, supporting 
small farms, and better educating consumers about where their food 
comes from and how it was produced. I also support providing assistance 
to lower-income individuals to enable them to afford healthy food. The 
government should also set an example in its own food sourcing, for 
Federal employees and for school lunches.
                                 ______
                                 
                       Comment of Michelle Gubman
    Date Submitted: Saturday, May 19, 2012, 8:31 p.m.
    City, State: San Francisco, CA
    Occupation: Product Marketing Manager
    Comment: I support promotion of organic farming practices, 
dismantling incentives for monocultures, dismantling incentives for 
specific foods such as corn and soy, protecting and incentivizing use 
of heirloom and non-engineered crops that help to preserve 
biodiversity, ensuring that farmers pay for water-intensive, energy-
intensive, and environmentally damaging farming practices, supporting 
small farms, and better educating consumers about where their food 
comes from and how it was produced. I also support providing assistance 
to lower-income individuals to enable them to afford healthy food. The 
government should also set an example in its own food sourcing, for 
Federal employees and for school lunches.
                                 ______
                                 
                        Comment of Jean Guenther
    Date Submitted: Saturday, May 19, 2012, 3:07 p.m.
    City, State: Burlington, VT
    Occupation: Psychotherapist
    Comment: Citizens--not chemical corporations--should be able to eat 
organic, non-GMO foods, so stop allowing these chemical & GMO 
intrusions on everyone's soil, air, and right for healthy, safe food. 
WE need to take this lesson from Europe!
                                 ______
                                 
                       Comment of Michael Guerra
    Date Submitted: Sunday, April 08, 2012, 8:20 a.m.
    City, State: San Antonio, TX
    Occupation: Organizational Development
    Comment: Please protect critical food programs like SNAP. This 
safety net for people in poverty, and the emphasis on healthy 
lifestyles, is key to a good economy.
                                 ______
                                 
                      Comment of Ricardo Guerrero
    Date Submitted: Friday, May 18, 2012, 3:12 p.m.
    City, State: Covina, CA
    Occupation: Pharmacy Service Rep.
    Comment: With more and more research showing positive's in 
consuming organic products, it is vital no funding be pulled from 
research involving organic products. It is our right to pursue 
happiness as citizens of the United States of America, Health being a 
major factor in that pursuit. Please support the field of Organic 
Research and Farming, if only for the sake of fellow humanity.
                                 ______
                                 
                        Comment of George Gugich
    Date Submitted: Saturday, May 19, 2012, 8:09 p.m.
    City, State: Baton Rouge, MI
    Occupation: Restaurant Owner
    Comment: All Plant based foods should be clearly labeled as 
Organic, Conventionally Produced or GMO.
                                 ______
                                 
                       Comment of Lilace Guignard
    Date Submitted: Saturday, May 19, 2012, 10:01 a.m.
    City, State: Mansfield, PA
    Occupation: Teacher, Volunteer Farm Market Manager
    Comment: As a manager of a rural farmers market, I see firsthand 
how the current subsidies benefit agribusiness and make it harder on 
small producers. Small producers who farm organic or at least more 
sustainably, are key to our nation's food security. People want local, 
fresher food that's affordable. It's more nutritious, it keeps money in 
the local economy, and keeps farmland from being subdivided and lost 
forever. GMO products and giants like Monsanto do not need government 
help. The people do--the biological, not corporate, ones!
                                 ______
                                 
                      Comment of Claude Guillemard
    Date Submitted: Saturday, May 19, 2012, 12:31 p.m.
    City, State: Baltimore, MD
    Occupation: Teacher
    Comment: It is absolutely crucial to my family that a farm bill 
protect local food, organic practices, and family farming. More and 
more research shows the link between industrial, uncontrolled, 
agricultural practices and health ailments.
                                 ______
                                 
                        Comment of Saniye Gungor
    Date Submitted: Friday, May 18, 2012, 9:59 a.m.
    City, State: Hurleyville, NY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Our nation's health and well being depends on clean 
sustainable agriculture friendly to Earth, animals and humans, to share 
and thrive together supporting one another!
                                 ______
                                 
                       Comment of Karlene Gunter
    Date Submitted: Friday, May 18, 2012, 5:43 p.m.
    City, State: Rochester, NY
    Occupation: Professor (Retired)
    Comment: We need to conserve farmland and family farmers. Corporate 
farmers or farmers with huge incomes should not receive any government 
money. Farmers should not poison their neighbors with insecticides or 
herbicides. Factory chicken, hog and beef farms should not be permitted 
to poison their neighbors with toxic air and wastes. Farmers should be 
rewarded for best practices in farming that protect farmland from 
degradation and don't use excessive water.
                                 ______
                                 
                        Comment of Alice Guntert
    Date Submitted: Saturday, May 19, 2012, 4:20 p.m.
    City, State: Rego Park, NY
    Occupation: Free-Lance Biologist
    Comment: American Agriculture has acquired a fearful reputation on 
the International Parquet. U.S. Ag Exports pressure local economies 
around the world to buy unwanted products. These products probably 
undermine more American Diplomatic Efforts than fought wars. These 
products cause people around the world to disdain the U.S. and the 
important democratic values that our founding fathers cherished. Have 
we forgotten about the Boston Tea Party?
    Only a return to sustainable Agricultural Production can turn this 
situation around.
                                 ______
                                 
                       Comment of Judi Gustafson
    Date Submitted: Wednesday, May 16, 2012, 11:23 p.m.
    City, State: Forest City, NC
    Producer/Non-producer: Producer
    Type: Fruits, Poultry/poultry products, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: I am a small farmer who tries to maintain sustainability. 
I find it difficult especially when rules are applied to my farm that 
were written for corporations. Please consider small farmers in the 
farm bill. We are truly the backbone of America.
                                 ______
                                 
                      Comment of Rae Ann Gustafson
    Date Submitted: Friday, May 18, 2012, 4:24 p.m.
    City, State: Mill Valley, CA
    Occupation: Registered Nurse
    Comment: It is beyond time to remember that it is the people of 
this country that are more important than the pocketbooks of a very few 
corporate billionaires. We need healthy food that is free of anything 
unnatural, that is the way it was before humans started messing with it 
with chemicals, genetic engineering, etc. We don't know how these 
things will affect us in the distant future. And most of us don't want 
to be the guinea pigs! Please let us go back to nature.
                                 ______
                                 
                        Comment of Joseph Guston
    Date Submitted: Sunday, May 20, 2012, 1:37 p.m.
    City, State: Poughkeepsie, NY
    Occupation: Retired
    Comment: There must be a fair farm bill, not one that caters to 
large agribusiness at the expense of everything and everyone else. 
Don't use subsidies as a blunt weapon. Thank you.
                                 ______
                                 
                        Comment of Sharyn Guthie
    Date Submitted: Friday, May 18, 2012, 7:20 p.m.
    City, State: Hickory, NC
    Occupation: Nutritionist
    Comment: For the health of our nation, the well-being of our 
environment, and the restoration of responsible, sustainable farming 
methods, I urge you to consider the reformation of the farm bill. Thank 
you!
                                 ______
                                 
                       Comment of Nancy Gutierrez
    Date Submitted: Friday, May 18, 2012, 3:36 p.m.
    City, State: Palm Desert, CA
    Occupation: Substitute Teacher
    Comment: The farm bill's focus should be on supporting organic and 
non-genetically modified produce. The farm bill must address long-term 
solutions. Easily, about 80% of Americans (those that understand that 
horrible science of genetic engineering) do not want GMOs.
    The farm bill should include the recommendations of the scientific 
community, not from the corporations whose bottom line does not include 
the health and well-being of its citizens. The farm bill needs to 
change to reflect the long-term needs of its citizens, not the 
corporations in agriculture and food producers who only care about 
profit.
                                 ______
                                 
                       Comment of Georgina Guzzon
    Date Submitted: Friday, May 18, 2012, 1:38 p.m.
    City, State: Santa Barbara, CA
    Occupation: Administrative Assistant
    Comment: Please make every effort to steer our country toward an 
agricultural future that will promote health, not just for consumers, 
but for the people who produce our food.
    We have the right, as consumers, to choose what we eat and to know 
how it was produced. If the laws of this country create an environment 
that is inhospitable to organic, sustainable food grown by smaller, 
more localized farms and ranches, the government will essentially be 
limiting our choices.
    Please, please help to create an environment in our country in 
which healthful, responsibly grown and raised food is not an upper-
middle class luxury.
                                 ______
                                 
                       Comments of Abra Gwartney
    Date Submitted: Friday, May 18, 2012 4:57 p.m.
    City, State: Portland, OR
    Occupation: Retired
    Comment: Big Ag., aka the industrial food producers, use the 
current farm bill to grab 85-90% of the subsidy and work 24/7 to put 
small organic farmers out of business and then buying up their farm 
lands at bargain basement prices to expand Big Ag's grip on that 
precious farm bill. This expands the use of GMO plants that go to 
market in the U.S.A. This is terrible news for the American consumer! 
The farm bill is overdue for or a complete over haul to prevent a bully 
from tilting the playing field in favor of the bully!
    Date Submitted: Friday, May 18, 2012, 5:10 p.m.
    Comment: Make sure that the playing field is Level for All players 
in agriculture. Currently, Cargill et al. takes advantage of their 
influence in the farm bill! Reduce industrial farms' influence over the 
small mom & pop organic farms to keep them in business. With GMO 
rapidly becoming the norm in our super markets, organic produce and 
small farm animals becomes extremely important for the consumer to 
access.
                                 ______
                                 
                         Comment of Jennifer H.
    Date Submitted: Friday, May 18, 2012, 2:41 p.m.
    City, State: Edina, MN
    Occupation: Real Estate Broker
    Comment: Without reading the entire proposed bill, I find it 
difficult to elaborate on all particular items that may be included. 
However, in general, I would like to comment that presently I am very 
concerned about the current policies that are in place, and concerned 
about policies that are in discussion, particularly with regard to 
genetically modified seed and such farming. Genetically modified seed 
and farming policies should NOT have precedence over organic farming. 
In fact, all policies should strengthen and aim for all organic farming 
and aim to reduce and eliminate all GMOs. The future impact of these 
GMO strategies are unknown, first and foremost, and dangerous. 
Additionally, organic and natural farmers should in no way be penalized 
by GMO companies or policies supporting such GMO procedures. GMO 
farming should be restricted from most areas and not allowed near 
organic farms. We should be focused on conserving our land and rotating 
crops accordingly to maintain the benefits and nutrients of the soil. 
Prairie grass lands and other natural habitats should also be 
protected. We should restrict the use of pesticides and chemicals that 
are negatively impacting our natural resources, such as the negative 
affects it is having on the bee and the grand contribution the bee 
makes to our agricultural industry. Not to mention, protecting the 
wetlands, rivers and streams from pesticide and chemical run off, and 
preserving our natural water supply and resources is imminent. We need 
to get back to basics. We need to use common sense. We need to stop the 
expansion of GMOs, protect our natural resources, and get back to a 
healthy and more natural way. The farm bill needs to protect these 
natural resources and support the expansion of organic farming.
                                 ______
                                 
                          Comment of Bill Haas
    Date Submitted: Thursday, May 17, 2012, 1:29 p.m.
    City, State: St. Louis, MO
    Occupation: Teacher, Candidate for MO Lt. Gov.
    Comment: Require Conservation Compliance for Taxpayer Subsidized 
Crop Insurance Programs in the 2012 Farm Bill to restore the link 
between soil and water conservation and taxpayer benefits to farmers. 
This would ensure that all new crop and revenue insurance or other risk 
management programs that make up a safety-net for farmers do not 
incentivize environmental destruction and it helps protect America's 
investment in our farmland and farmers.
    Set reasonable limits on taxpayer-funded crop insurance subsidies 
to help keep costs from continuing their upward spiral.
    Help grow jobs by retaining programs like the Value Added Producer 
Grants Program. Guarantee $30 million of mandatory funding per year. 
VAPG provides seed money to help farmers innovate in agriculture and 
create jobs while securing a sustainable path to market-based farm 
profitability.
    Help grow local farm economies and support healthy food in schools 
by providing flexibility for states to use existing food procurement 
programs to purchase fresh, healthy food from local farmers and 
ranchers.
    Retain effective conservation programs in the farm bill that 
deliver clean water and wildlife benefits.
    Grow farmers through mandatory funding for the Beginning Farmer and 
Rancher Development Program. The National Sustainable Agriculture 
Campaign recommends $30 million in mandatory funding. With an aging 
farm population, now is the time to invest in the future of American 
agriculture by nurturing new agriculture start-ups.
    Secure our food future and fund the Organic Agriculture Research 
and Extension Initiative at $30 million per year in mandatory funding. 
Investment in agricultural research is vital to continued productivity 
and innovation in growing and diverse sectors of American agriculture, 
such as organic agriculture.
    Dear House Agricultural Committee:

    Because of the important role farmers play in our food system, 
taxpayers have supported a safety net for farmers for nearly 30 years, 
always in return for a guarantee that subsidized farmers will follow 
basic conservation practices in their fields to protect soil and water. 
This revolved around the basic realization that while Americans needed 
food, it was critical to employ conservation practices in order to 
preserve the economic viability and productivity of our farmlands and 
resources for the future.
    As the House Agriculture Committee prepares your draft of the farm 
bill, I urge you to restore the link between taxpayer-supported 
subsidies for crop insurance and conservation compliance protections 
that will protect the nation's water and land.
    This action is especially important as Congress considers 
eliminating direct payments, the major subsidy program that is linked 
to conservation compliance, and moving some of those funds to support 
increased subsidies for crop insurance, which lacks compliance 
requirements. Unless you help to reconnect crop insurance subsidies to 
conservation compliance, a significant part of farmers' incentive to 
follow conservation plans will vanish this year.
    Farmers need crop insurance as part of their safety net and the 
public needs basic conservation practices on farms to make sure that 
quality farmland and water can support future generations as well as 
the current needs of our country. We cannot accept sacrificing long-
term economic and environmental sustainability for short-sighted and 
short-term economic profits.
    Connecting eligibility for crop insurance subsidies to conservation 
compliance is fiscally responsible and ensures public subsidies for 
farmers' insurance premium payments align with the public's interest in 
basic conservation of our soil and water. Missouri consistently ranks 
in the top five for soil loss, losing more than 5 tons per acre per 
year, so we have a lot to gain.
            Sincerely,

Bill Haas.
                                 ______
                                 
                        Comment of Martha Haber
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Long Beach, CA
    Occupation: Retired
    Comment:

    1. Do not take money from the food stamp program. Take it from the 
        farm subsidies instead.

    2. Stop supporting the large agribusiness concerns, and begin 
        supporting small family farms, especially those that are using 
        organic farming methods to produce food for our nation.

    3. It is wrong for Congress to pass laws and programs that give 
        more money and power to huge companies at the expense of the 
        small farmer. Listen to the will of the people, and stop 
        climbing into bed with agribusiness. Make a commitment to the 
        health of our nation, instead of to the coffers of the 
        multimillionaire mega-farm corporations.
                                 ______
                                 
                       Comment of Suzanne Hachey
    Date Submitted: Friday, May 18, 2012, 12:25 p.m.
    City, State: Stetson, ME
    Occupation: Beginning Farmer
    Comment: We need support of local produced Real food without 
preference to large factory farms who only care about profits! Local 
farms care about healthy food for their neighbors and families. 
Monsanto and General Foods are not what our future should include.
                                 ______
                                 
                     Comment of Christine Hachfeld
    Date Submitted: Friday, May 18, 2012, 12:20 p.m.
    City, State: West Concord, MN
    Occupation: Research Tech
    Comment: I would like to see subsidized programs for vegetable and 
organic farmers. We need to stop putting such emphasis on corn and 
soybean production. Corn production trickles down to contribute to 
obesity by producing corn syrup for junk foods juice and soda pop. We 
need to wean America off sugar and promote eating healthy to help lower 
health care cost. Farmers will not produce healthy foods if there is no 
profit margin like with corn and soybean. One-third of Americans are at 
an Ideal weight statics show, due to poor diets and sedentary 
lifestyles we are reaching a huge epidemic and to change this it needs 
to start somewhere. It is cheaper for people to feed their kids fast 
food than local produce and healthy foods. This is truly sad.
                                 ______
                                 
                        Comment of Cherie Hacker
    Date Submitted: Saturday, May 19, 2012, 6:24 p.m.
    City, State: Sacramento, CA
    Occupation: Teacher
    Comment: I have a single organic garden in an urban, community 
garden plot. I'd like all of my community, grandchildren, and nation to 
be able to eat save non-GMO foods. We have a right to have the labeled 
knowledge of what we are buying with all food products and to abolish 
products and seeds that will adversely affect future generations on 
this planet.
                                 ______
                                 
                        Comment of Laura Hackney
    Date Submitted: Monday, May 07, 2012, 5:59 p.m.
    City, State: Orono, ME
    Producer/Non-producer: Producer
    Type: Field Crops, Greenhouse/nursery, Vegetables, Other
    Size: Less than 50 acres
    Comment: I am a student at the University of Maine studying 
Environmental Horticulture and Sustainable Food Systems. This summer I 
am part of a small group of students who manage a MOFGA certified 
organic vegetable CSA. We grow crops to feed our community members all 
summer long, even into the fall with winter squash and pumpkins. As 
part of a growing movement towards local food production, I highly urge 
you to consider making funding more readily available for projects like 
ours. Not only in producing the food but in advertising this incredible 
opportunity for students and their families. We are happy to help grow 
food for our communities and want it to be possible for anyone with a 
desire for fresh food to attain a share. Thank you for your time and 
consideration in representing us.
                                 ______
                                 
                         Comment of Ilse Hadda
    Date Submitted: Friday, May 18, 2012, 2:26 p.m.
    City, State: Berkeley, CA
    Occupation: Retired
    Comment: I believe that it is extremely important that this country 
encourages eating organic food and that our population is encouraged to 
grow it by creating something like victory gardens which we used to 
have during World War II.
                                 ______
                                 
                      Comment of Stephanie Haddad
    Date Submitted: Friday, May 18, 2012, 4:20 p.m.
    City, State: Haiku, HI
    Occupation: Massage Therapist
    Comment: Please help farmers and everyone else in our great country 
have access to quality food and help us take care of the environment. 
Thank you for all you have done in this regard so far, as I know you 
are aligned with these hopes.
                                 ______
                                 
                        Comment of Ron Hadfield
    Date Submitted: Wednesday, May 09, 2012, 6:33 p.m.
    City, State: San Francisco, CA
    Occupation: Retired
    Comment: My monthly allotment of food stamps is vital to my well-
being. Although I still have to scrape by, I could not survive without 
the food stamp program. Let's do the humane thing and keep this vital 
program.
                                 ______
                                 
                        Comment of Robert Hadley
    Date Submitted: Friday, March 16, 2012, 5:52 p.m.
    City, State: Dayton, OH
    Occupation: Retired
    Comment: I strongly support passage of the farm bill. Our country 
simply cannot turn its back on the people who would benefit from this 
legislation. The America of which I am proud helps its poor and needy 
in times like this. Vote for this bill to keep our country living up to 
its ideals.
                                 ______
                                 
                        Comment of Mark Hadlock
    Date Submitted: Wednesday, April 11, 2012, 10:40 a.m.
    City, State: Rio Rancho, NM
    Occupation: COO
    Comment: Please increase support of Federal nutrition programs. 
Last year New Mexico saw a reduction of 37% in TEFAP food distribution 
which means that over 1.2 million meals were not available to people 
who need donated food to survive. You Must take care of the most basic 
needs of the people you have been elected to represent before 
considering any non-essential social improvements.
                                 ______
                                 
                         Comment of Harry Haff
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Prescott, AZ
    Occupation: Teacher
    Comment: Commodity farmers should not get tax subsidies. Period. 
Agribusiness is about corporate profits and not about what is good for 
the country. Therefore, they should stand or fall without corporate 
welfare of any kind.
    According to the National Sustainable Agriculture Coalition's Ferd 
Hoefner, ``By failing to place limitations on crop insurance subsidies 
and to re-attach soil erosion and wetland conservation requirements to 
crop insurance programs, the Committee has failed to do the full reform 
that is needed.'' The very same practices that caused such agricultural 
havoc during the depression--poor soil management, excessive use of 
pesticides and fungicides, over reliance on monoculture farming and 
chemical fertilizers--will be perpetuated unless meaningfully addressed 
and real progress is made in farming practices and government welfare 
for agribusiness.
    Thank you.
                                 ______
                                 
                        Comment of Saeeda Hafiz
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: San Francisco, CA
    Occupation: Food Educator
    Comment: Please do the simple thing and make eating support the 
long-term goals of our health and our planet. The last 100 years was 
successful for making sure that our food supply is plentiful, but now 
it is time to make our food supply healthier for all as well as 
abundant. Thank you for your consideration.
                                 ______
                                 
                      Comment of Cassandra P. Hage
    Date Submitted: Thursday, May 17, 2012, 9:25 a.m.
    City, State: St. Louis, MO
    Occupation: Environmental Educator
    Comment: Dear House Agriculture Committee:

    I work for a small nonprofit organization that educates people 
about environmental issues and encourages them to support the local 
green economy. I took several sustainable agriculture courses in 
college, worked on a small organic farm for two summers and currently 
produce ample food, including vegetables, fruit and honey, on my \1/8\ 
acre plot in St. Louis City. Whatever I can't produce myself, I try to 
source from local farmers and producers. In sum, sustainable food 
production and environmental conservation are important to me and my 
social and professional networks.
    Because of the important role farmers play in our food system, 
taxpayers have supported a safety net for farmers for nearly 30 years, 
always in return for a guarantee that subsidized farmers will follow 
basic conservation practices in their fields to protect soil and water. 
This revolved around the basic realization that while Americans needed 
food, it was critical to employ conservation practices in order to 
preserve the economic viability and productivity of our farmlands and 
resources for the future.
    As the House Agriculture Committee prepares a draft of the farm 
bill, I urge you to restore the link between taxpayer-supported 
subsidies for crop insurance and conservation compliance protections 
that will protect the nation's water and land.
    This action is especially important as Congress considers 
eliminating direct payments, the major subsidy program that is linked 
to conservation compliance, and moving some of those funds to support 
increased subsidies for crop insurance, which lacks compliance 
requirements. Unless you help to reconnect crop insurance subsidies to 
conservation compliance, a significant part of farmers' incentive to 
follow conservation plans will vanish this year.
    Farmers need crop insurance as part of their safety net and the 
public needs basic conservation practices on farms to make sure that 
quality farmland and water can support future generations as well as 
the current needs of our country. We cannot accept sacrificing long-
term economic and environmental sustainability for short-sighted and 
short-term economic profits.
    Connecting eligibility for crop insurance subsidies to conservation 
compliance is fiscally responsible and ensures public subsidies for 
farmers' insurance premium payments align with the public's interest in 
basic conservation of our soil and water. Missouri consistently ranks 
in the top five for soil loss, losing more than 5 tons per acre per 
year, so we have a lot to gain.
    Thank you for seriously considering my comments and making 
sustainable, economically and environmentally viable incentives a 
strong component of the farm bill.
            Sincerely,

Cassandra P. Hage.
                                 ______
                                 
                       Comment of Alexandra Hager
    Date Submitted: Friday, May 18, 2012, 4:55 p.m.
    City, State: Chicago, IL
    Occupation: Facility Manager of Holistic Health Fitness Center
    Comment: Please support Small local farms/sustainable farming, 
conservation and organic farming--this is very crucial to support for 
the public's health and access to these types of foods.
                                 ______
                                 
                      Comment of Gabrielle Haggard
    Date Submitted: Friday, May 18, 2012, 3:02 p.m.
    City, State: Berryville, VA
    Occupation: Alpaca & Horse Farm Owner/Homemaker
    Comment: Please reject the spending cut that singles out 
conservation, research, extension, and other programs important to 
sustainable and organic agriculture. It terminates programs that serve 
beginning and minority farmers without making any cuts to commodity or 
crop insurance programs. If cuts are to be made then everything must be 
on the table. Cuts must be fair, equitable and based on the merits of 
each program.
                                 ______
                                 
                        Comment of Alice Haining
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: East Setauket, NY
    Occupation: Self-Employed Actor, Yoga Teacher, and Mother
    Comment: It is well beyond time for the traditional farm subsidies 
to end. I ask Congress to support small family farmers, sustainable and 
organic agricultural farming practices, to end GMOs being sold without 
labeling, and to back independent scientific research into best 
practices to create secure, regional, sustainable farming, harvesting, 
slaughtering, and distribution networks. Food safety and availability 
is more crucial to our national security than almost anything else. We 
can live without bombs, guns, and nuclear waste, but we can't live 
without safe food, water, and air.
                                 ______
                                 
                         Comment of Karen Hakun
    Date Submitted: Saturday, May 19, 2012, 12:01 p.m.
    City, State: North Wales, PA
    Occupation: Psychotherapist
    Comment: We need to preserve our land, soil, seeds, and farmers. We 
need to prevent big agra-businesses from destroying what is left of the 
healthy food-producing industry.
                                 ______
                                 
                        Comment of Jeanette Hale
    Date Submitted: Monday, April 02, 2012, 9:55 a.m.
    City, State: Russellville, AR
    Occupation: Conservation District Employee
    Comment: My concern for the conservation/agriculture community 
reaches far beyond my interests as an employee tasked with 
administering the farm bill programs. It is essential that we enable 
those that feed us and give us clean water. What is more basic than 
food, water and clean air? Our future depends on the successfulness and 
productivity of farmers in America and the need to make stewardship of 
our natural resources a way of life. Stewardship education in urban 
America is an area that desperately needs to be addressed, as well as 
the continued support of beneficial programs for farmers.
                                 ______
                                 
                       Comment of Jennifer Hales
    Date Submitted: Friday, May 18, 2012, 9:56 a.m.
    City, State: San Leandro, CA
    Occupation: Health Care Worker
    Comment: I support families battling hunger, helps communities 
operate farmers' markets, and am concerned about the part of bill that 
unfortunately, subsidizes the production of food that is making us and 
our planet sick.
                                 ______
                                 
                          Comment of Jil Hales
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Healdsburg, CA
    Occupation: Restaurant Owner
    Comment: I support changes to the existing farm bill as succinctly 
laid out by Slow Food. Our entire way of life here in Sonoma County 
will depend upon how you vote this farm bill. The ramifications of the 
bill--making it fair and making it work for smaller producers--will 
resonate across the country and if implemented help 'grow' sustainable 
food production that is our heritage and should be part of our future.
                                 ______
                                 
                       Comment of James Halfaker
    Date Submitted: Friday, May 11, 2012, 6:37 p.m.
    City, State: Seattle, WA
    Occupation: Northwest Harvest Board Member--Clergy
    Comment: SNAP support is vital to our range of over 300 feeding 
programs. Help for disabled, and legal immigrants needed food is also 
vital. Please do what you can to sustain these programs.
                                 ______
                                 
                        Comment of Anthony Hall
    Date Submitted: Friday, May 18, 2012, 1:22 p.m.
    City, State: Topanga, CA
    Comment: Energy is not the only renewable resource we must pay 
attention to. We must learn to farm sustainably, not only for those of 
us who can afford organic, non-GMO food but also for those to whom 
these options are not yet available. GMO crops must be stopped. 
Permanently. We must learn to farm sensibly or we are all going to 
perish.
                                 ______
                                 
                        Comment of Camille Hall
    Date Submitted: Sunday, May 20, 2012, 2:01 p.m.
    City, State: Corvallis, OR
    Occupation: Teacher
    Comment: The family farm is a dying breed in America. Current 
government policies support corporate agriculture with subsidies and 
preferential tax codes. It is time to give equal footing to the family 
farm and stop spending billions of taxpayer dollars on corporate tax 
credits and exemptions.
                                 ______
                                 
                         Comment of Denny Hall
    Date Submitted: Friday, May 18, 2012, 9:47 p.m.
    City, State: Haleyville, AL
    Occupation: Disabled
    Comment: I respectfully remind you that being a good steward of the 
food and Earth falls in the guidelines of your job description. Don't 
let us down. We need a better bill. Thank You and God Bless you.
                                 ______
                                 
                      Comment of Dr. John R. Hall
    Date Submitted: Wednesday, May 09, 2012, 4:17 p.m.
    City, State: Lansing, MI
    Occupation: College Instructor
    Comment: We should be extending the ``helping net'' rather than 
pusillanimously retracting it. Are we at core a greedy and selfish 
nation? I like to think there is some generosity of spirit remaining in 
the U.S. Show it.

Dr. John R. Hall
                                 ______
                                 
                        Comment of Marianne Hall
    Date Submitted: Friday, May 18, 2012, 11:49 p.m.
    City, State: Eugene, OR
    Occupation: Home Gardener and Farmers' Market Shopper
    Comment: Time for absolutely No Subsidies for Agriculture. Farm 
bill for farmers to have Equality of benefits and market accessibility. 
Organic, non-toxic, and healthful is what the people want, so make it 
possible for consumers to make the choice in direct markets. Choice by 
buying in the marketplace; Not by the Lobbyists. No more GMO or shoddy 
inspected meats, etc., going to market and Label, label, label. No more 
hidden ingredients. Make all accountable for what is in their food 
products.
                                 ______
                                 
                        Comment of Michele Hall
    Date Submitted: Sunday, April 29, 2012, 11:54 a.m.
    City, State: Bolingbrook, IL
    Occupation: Customer Service Rep.
    Comment: I work a full time job and still am unable to afford food, 
medical, and other minimum life necessities. I'm forced to decide each 
month whether to pay a doctor bill, a utility bill, or late fees on 
rent in order to feed my son and myself. And yet, we don't qualify for 
food stamp benefits because I earn $5 more than state qualifiers for 
benefits. My concern is that if my small family is on the edge then 
certainly there are so many more like us and even more folks who are 
less fortunate and unable to provide meals for their families as well. 
I, personally, know working families in shelters and living in their 
cars who simply cannot afford to eat, much less eat nutritious meals! 
Please, don't let Americans go hungry! In America there should not be a 
family in any community going to ``bed'' hungry every day God sends! I 
urge you to support initiatives that will make a way for American 
families to worry less about their next meal! I wonder if the shoe 
where on the other foot, would policymakers allow their own families to 
suffer? I love this country but I cringe each time I look at my son and 
wonder is today the day we don't eat? Will my neighbors go hungry? I'm 
ashamed that this is something that Americans must face daily. Don't be 
ashamed, help your countrymen and do something about it! God Bless 
America and her less fortunate people!
                                 ______
                                 
                         Comment of Pamela Hall
    Date Submitted: Friday, May 18, 2012, 9:58 p.m.
    City, State: New York, NY
    Occupation: Retired
    Comment: Please do everything that you can to insure that consumers 
have ready access to all the ingredients and types of alien and 
composed food as they unsuspectingly purchase it. Do not allow huge 
businesses to dictate to our farmers and keep them from using the seed 
that they always have used. Mass production is important but these 
other issues are important too. I want to know what it is that I am 
eating. I want to be sure that I am not going to get sick from it or 
that inhumane means have been used to produce it or that animals up to 
their knees in excrement are allowed to be called food. Thank you.
                                 ______
                                 
                         Comment of Sarah Hall
    Date Submitted: Wednesday, May 09, 2012, 10:20 p.m.
    City, State: Burbank, CA
    Occupation: Writer
    Comment: Small organic farmers and ranchers need to be supported, 
rather than punished with regulations that require them to spend money 
they cannot afford to spend. Organic farming is an essential part of a 
healthy America.
                                 ______
                                 
                       Comment of Shannon Hallett
    Date Submitted: Friday, May 18, 2012, 5:46 p.m.
    City, State: Yakima, WA
    Occupation: Retired
    Comment: No one should go hungry in this affluent Nation . . . 
there is no excuse and your positions on aid to the elderly and 
children is shameful and does not represent people with a heart and 
soul!
                                 ______
                                 
                         Comment of Nancy Hamer
    Date Submitted: Friday, May 18, 2012, 9:07 p.m.
    City, State: Portland, OR
    Occupation: Social Work
    Comment: It is important that local small farms be encouraged in 
order to develop community resources and also to allow for greater 
availability of organic and wholesome food that is not GM. I am opposed 
to large corporations such as Monsanto controlling agriculture, here in 
the U.S. and in other countries such as Africa. If we start to change 
our practices now, it will benefit everyone in the future.
                                 ______
                                 
               Joint Comment of Janet and Geoffrey Hamill
    Date Submitted: Wednesday, May 16, 2012 9:55 p.m.
    City, State: St. Louis, MO
    Occupation: Occupational Therapist, Physician
    Comment: Hi Rep Carnahan: We believe that any farm subsidies should 
be tied to conservation as they were in the past. We are losing soil 
due to erosion and harmful farming practices here in Missouri, and we 
need incentives for farmers to preserve our land. We also believe that 
family farmers should be given more support than the large 
agribusinesses. Local production must be preserved.
            Sincerely,

Janet and Geoffrey Hamill.
                                 ______
                                 
                       Comment of Bruce Hamilton
    Date Submitted: Friday, May 18, 2012, 12:57 p.m.
    City, State: Salt Lake City, UT
    Occupation: Retired Computer System Administrator
    Comment: Re: the 2012 farm bill: Please

  <bullet> end farm subsidies

  <bullet> support sustainable organic farming

  <bullet> stop pollution from CAFOs

  <bullet> support small family farms and place severe limits on any 
        support for big agriculture
                                 ______
                                 
                       Comment of Kerri Hamilton
    Date Submitted: Friday, May 18, 2012, 4:15 p.m.
    City, State: San Jose, CA
    Occupation: Community Advocate
    Comment: So many critical issues tie to our Federal farm bill, 
including health care inflation. Please stop subsidizing big 
agriculture and disease! We don't need more high fructose corn syrup 
laden products to drive obesity, gluten laden wheat to promote disease, 
and GMO's. Please help the small/organic farmers who toil to promote 
health and care about quality food.
                                 ______
                                 
                       Comment of Laura Hamilton
    Date Submitted: Friday, May 18, 2012, 11:07 a.m.
    City, State: Augusta, ME
    Occupation: Yoga Teacher
    Comment: No GMOs--Stop big farming. Leave Our Seeds Alone! This is 
an absolute disgrace what you have done to farms in this country. 
Please do everything to bring back small local farms. No more farm 
subsidies. Leave us alone and let us produce our own food.
                                 ______
                                 
                      Comments of Tricia Hamilton
    Date Submitted: Friday, May 11, 2012, 9:49 a.m.
    City, State: Shirley, NY
    Occupation: Homemaker, Caregiver
    Comment: There should be no reason for hunger in a country which 
throws tons & tons of leftovers in the garbage.
    Date Submitted: May 18, 2012 12:23 p.m.
    Comment: Shame on us if we have no control over, what the meat 
industry is doing now & forever. We are the consumers, we have the 
right to see inside their dark doors.
                                 ______
                                 
                      Comment of William Hamilton
    Date Submitted: Sunday, May 20, 2012, 8:11 a.m.
    City, State: Cecilia, KY
    Occupation: Self-Employed Truck Driver
    Comment: More often than not Corporate Agriculture is rewarded for 
practices that are detrimental to the to the small farmer and at odds 
with the principles of the country at large. More consideration needs 
to be given to the small producers, these are the ones who will keep 
the people fed and clothed in all times, good and bad not any large 
corporation.
                                 ______
                                 
                       Comment of Deborah Hamlin
    Date Submitted: Thursday, May 17, 2012, 9:31 p.m.
    City, State: Falls Church, VA
    Occupation: Executive Director, Irrigation Association
    Comment:
2012 Farm Bill Development
    The pending work in developing the next iteration of the farm bill 
will be pivotal to the future of U.S. agriculture well beyond the 5 
year lifespan of the legislation. We at the Irrigation Association 
understand and appreciate the daunting task you have ahead of you of 
not only developing sound policies to keep America at the forefront of 
agricultural production, but also doing so in the midst of a financial 
climate this nation has not seen for generations. However, we believe 
that this Congress, with your leadership and partnership with the U.S. 
Senate and the Administration, can develop a strong farm bill that is 
effective, efficient and fiscally responsible. On behalf of the 
Irrigation Association, we urge you to consider the recommendations set 
forth in these comments to help you achieve this goal.
    First, the Irrigation Association is a trade association 
representing approximately 1,800 member companies in the irrigation 
industry. Our members include irrigation product manufacturers, 
dealers, distributors, consultants, contractors and end users in the 
agricultural and landscape industries. The mission of the Irrigation 
Association is to promote efficient irrigation technologies, products 
and services, and our expertise lies in ensuring every drop of water 
applied to a crop is done so in an efficient manner, thus leading to 
more agricultural output per unit of input. Our members not only 
manufacture and sell efficient irrigation products and technologies to 
agricultural producers, we also work with the producer on the design, 
use, implementation and maintenance of their irrigation systems and 
technologies to ensure maximum efficiency of the water used.
    According to the Soil and Water Resources Conservation Act of 2011 
Appraisal conducted by the USDA, farms with irrigated crops produced 40 
percent of the value of agricultural products sold in 2007, and farms 
with at least some irrigation were larger than the average farm and had 
annual sales more than four times higher than their dryland 
counterparts. As you know, irrigated agriculture is crucial to overall 
U.S. agricultural production and essential as our nation's population 
continues to increase. In fact, according to the USAID, water 
availability threatens to reduce global food supply by more than 10 
percent within the next 25 years. If we are to meet the demand of our 
nation's future generations with a safe and reliable food supply, while 
remaining productive and competitive on a global scale, the next farm 
bill must recognize the importance of not only using water efficiently, 
but also the importance of producing more with the resources that are 
available now.
The Conservation Title
    Like Congress, agricultural production needs to achieve more with 
the resources provided. The irrigation industry understands the need 
for the balance between environmental performance and agricultural 
productivity. For this reason, the Irrigation Association strongly 
believes in the importance of the conservation programs administered by 
the NRCS, specifically the EQIP program. Over the years, EQIP has been 
a key component to not only assist agricultural producers with 
incentivizing environmentally sound on-farm practices; it has also made 
U.S. agriculture more productive and competitive globally. As Congress 
considers changes to the existing EQIP program, the Irrigation 
Association urges the following:

  <bullet> Title II programs, including EQIP, should receive sufficient 
        funding, so that on-farm environmental performance goals of the 
        program are achieved;

  <bullet> Conservation Title programs should be streamlined in a way 
        that does not lessen funding opportunities for agricultural 
        producers, but rather increases opportunities, due to overhead 
        reduction, elimination of redundancies, etc.;

  <bullet> Program delivery should be improved with the continuation of 
        the NRCS's ``Conservation Delivery Streamlining Initiative,'' 
        along with the increased use and support of third-party 
        Technical Service Providers (TSPs) to assist agricultural 
        producers with their conservation plans, ensuring sound 
        decisions for environmental and production performance;

  <bullet> The EQIP program should expand the priority qualification of 
        irrigation efficiency-related projects;

  <bullet> The majority of project funding decisions and prioritization 
        should be made at the state level; providing the local, 
        regional and state land managers the ability to match public 
        investments in environmental performance in that state with the 
        type of agricultural production (livestock, specialty, 
        commodity, etc.) and watershed enhancement goals.
Technical Service Providers
    As we stated earlier, the Irrigation Association continues to be a 
strong supporter of NRCS and the EQIP program. Through a signed 
memorandum of understanding with the NRCS, the Irrigation Association's 
Certified Irrigation Designer (CID) for agriculture and the Certified 
Agricultural Irrigation Specialist (CAIS) are recognized by the NRCS. 
This recognition affords those professionals who hold an agricultural 
CID and/or CAIS certification the opportunity to become an NRCS 
Technical Service Provider. As you look into opportunities to promote 
jobs and third-party expertise in this farm bill, the Technical Service 
Provider program promotes private job opportunities through consulting 
agricultural producers on their conservation plans. This program is 
very positive for the irrigation industry and for on-farm production as 
producers look to increase yields through applying irrigation water 
more efficiently. If you'd like more information about IA's 
certifications and opportunities to promote these professionals through 
conservation programs, please visit http://www.irrigation.org/
certification/.
Funding of EQIP Projects
    The Irrigation Association recognizes that the improvement of 
environmental performance of on-farm operations is the goal of the EQIP 
program. However, we urge Congress to consider expanding the priority 
funding opportunities associated with irrigation improvements beyond 
achieving a ``net savings of water.'' As we mentioned earlier, the 
Irrigation Association supports funding decisions and priorities being 
made at the local level, recognizing the differing needs in 
agricultural production in California versus Colorado versus Florida, 
for example. We believe that the priority funding of irrigation-related 
EQIP on-farm projects should expand to also include

  <bullet> improving irrigation distribution uniformity; and

  <bullet> reduce impairment of water quality through irrigation 
        efficiencies.

    Congress must act to ensure that programmatic policies contained 
within EQIP and other conservation programs recognize the balance 
between environmental and agricultural performance. We believe that the 
addition of these two funding opportunities associated with irrigation 
efficiencies are a step in the right direction.
Recommendations to Improve AWEP
    The Irrigation Association joins groups such as the Family Farm 
Alliance in calling for improvements to the NRCS's Agricultural Water 
Enhancement Program (AWEP). As FFA's President Patrick O'Toole stated 
in his April 26, 2012, testimony before the Subcommittee on 
Conservation, Energy, and Forestry, ``the original AWEP proposal was 
solid from a conceptual standpoint, but by the time the concept made it 
through the legislative and administrative process, the program that is 
now in place is not being implemented in a manner consistent with the 
original vision. In Arizona, for example, state NRCS local working 
groups came up with a list of priorities and resource concerns at the 
request of NRCS headquarters in Washington, D.C. While irrigation 
efficiency was one of the highest priorities listed, local working 
groups noted that AWEP simply was not being applied in a way that could 
maximize its potential benefits. Rather than providing funds directly 
to irrigation districts, the districts instead have been put in 
situation where they essentially pass the phone number of the local 
NRCS office on to the individual landowner, and NRCS takes over from 
there. In essence, this AWEP has simply become an expansion of the 
existing EQIP program, which was definitely not the intent when this 
concept was crafted 4 years ago.''
    The IA joins the FFA in calling for a more streamlined approach to 
AWEP that places emphasis on helping farmers and ranchers improve water 
conservation, management, reuse and efficiency while keeping their 
operations viable, rather than eliminating irrigated agricultural lands 
altogether at a time when worldwide demand for food is growing every 
day.
    We must create opportunities within the new farm bill to further 
improve upon AWEP's initial concept, such as:

  <bullet> Allowing AWEP to provide direct payments to irrigation 
        districts to work directly with their landowner member farmers 
        on NRCS-approved coordinated water conservation and management 
        projects. Administrative expenses for such partners should be 
        allowed, but capped;

  <bullet> Irrigation districts and/or landowners should be allowed to 
        implement water conservation or water quality projects outside 
        of the normal projects funded under the EQIP program, given 
        that they can show improvements to either water quantity or 
        quality;

  <bullet> Irrigation districts or similar entities should be allowed 
        to be the basis for ``pooling'' arrangements, where the 
        benefits of a project which affects multiple landowners is 
        funded by ``pooling'' their individual AWEP interests into a 
        larger, coordinated project;

  <bullet> Direction must be provided to improve how NRCS program 
        administrators deliver timely and accurate information, provide 
        reliable and transparent processes, and set firm deadlines;

  <bullet> Administrative costs associated with any work performed by 
        the NRCS should be capped at a reasonable level;

  <bullet> The role of the Bureau of Reclamation in coordinating with 
        NRCS in the implementation of this program in Western states 
        must be well defined, and should complement the collaborative 
        philosophy (between the Departments of Agriculture and 
        Interior) embedded in the ``Bridging the Headgates'' initiative 
        endorsed by both the Bush and Clinton Administrations;

  <bullet> The program should provide assurances that the intent is not 
        to reallocate water away from agriculture, but to help stretch 
        limited water supplies for future regional beneficial use. We 
        do not believe AWEP funds should be used to retire farmland or 
        convert irrigated ground to dryland crops. It must also 
        recognize the traditional deference of Federal agencies to 
        state water laws and allocation systems;

  <bullet> The money obligated for these programs in the farm bill 
        needs to be ``no year'' money, so that it doesn't have to all 
        be obligated in the first year, with nothing left in later 
        years. This has proven to be real hindrance for projects that 
        take more than 1 year to build. Water managers have also 
        noticed that the NRCS funding levels fluctuate, and so they are 
        never sure what level of funding their farmers will receive. 
        During the application process to secure funding, NRCS should 
        agree how much a district is going to receive and ensure this 
        money will be there. To minimize administrative complications, 
        sharing some of the control over funds with the partnering 
        irrigation districts would simplify the responsibilities of the 
        NRCS. Districts could be held accountable through audits and 
        reports delivered to the NRCS.
Regulation Uncertainty
    As you are well aware, U.S. agricultural producers and suppliers 
are currently facing regulation uncertainty. Whether those regulations 
deal with water availability, water quality or other on-farm practices, 
we at the Irrigation Association believe that mutual environmental and 
agricultural productivity goals can be achieved through voluntary 
programs, such as EQIP, much more efficiently than productivity-
hindering regulations. For this reason, the Irrigation Association has 
joined the Western Agriculture and Conservation Coalition, as a 
steering committee member and supports all of the recommendations from 
that coalition. We are excited to partner with Trout Unlimited, Family 
Farm Alliance, The Nature Conservancy, Public Lands Council, 
Environmental Defense Fund, California Farm Bureau, Arizona Public 
Lands Council and the Wyoming Stock Growers Association, as we promote 
common environmental goals, while recognizing the need for a globally 
competitive U.S. agricultural sector.
Pass a Farm Bill This Year
    Finally, we appreciate all you are doing to advance a farm bill 
reauthorization this year. This farm bill is among the most important 
pieces of legislation the U.S. Congress will consider in 2012 and we 
urge you to continue your work to pass a bill before the current 
authorization expires. Failure to pass a bill, or ``settling'' for a 
temporary extension, will create tremendous uncertainty throughout the 
U.S. agricultural community and will sharply decrease the positive 
opportunities that a farm bill passed this year has to offer this year.
    Thank you for your time and consideration. We look forward to 
working with you as your 2012 Farm Bill development continues. If you 
have any questions regarding these recommendations or for further 
information regarding our partnership with NRCS and our working with 
agricultural producers to promote efficient irrigation, please contact 
John Farner, IA's Government Affairs Director, at [Redacted] or 
[Redacted].
                                 ______
                                 
                        Comment of Thomas Hamlin
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: Portland, OR
    Occupation: Web Developer and Designer
    Comment: A good friend of mine is a farmer in Ashland, OR, where he 
is struggling to make a living as a CSA and farmer's market producer. 
He raises a diverse crop of organics, builds resilient natural systems 
based on permaculture, and educates his local high school students 
about farming.
    Why should he receive less government assistance than industrial-
scale commodity farmers who rely on unsustainable mono-crops, 
pesticides, herbicides, and nonrenewable energy to produce food that is 
less nutritious?
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Louise Hamm
    Date Submitted: Friday, May 18, 2012, 3:00 p.m.
    City, State: Paso Robles, CA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: As many small farmers such as myself are trying to move 
away from chemical farming, cutting the organic research is a mistake. 
We need our organic farms and farmers. It is the way of the future for 
our country, our environment, and our planet.
                                 ______
                                 
                         Comment of Tami Hamman
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Chino Hills, CA
    Occupation: Office Manager
    Comment: I am a cancer survivor and I know the importance of what 
we put in our bodies and how it relates to our health. I know we have a 
healthcare problem. Prevention is the key! I can't afford many luxuries 
in life please don't take away good healthy food too! I will not buy 
food with fillers, GMOs, pesticides, etc. I hope you do the right 
thing. Thank you for listening.
    A concerned American.
                                 ______
                                 
                       Comment of Sally Hammerman
    Date Submitted: Friday, May 18, 2012, 5:36 p.m.
    City, State: West Chester, PA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: We are a small, organic, spray-free community building 
farm whose members share in our produce and our work. We are concerned 
farmers. Our land and those of us who live on it and from it all work 
reciprocally to maintain our health and happiness. Governmental 
representatives should also see their work as farmers who maintain a 
healthy landscape that feeds them and their supporters. Otherwise the 
soil from which we farmers gain our livelihood will deteriorate and no 
longer sustain.
                                 ______
                                 
                       Comment of Ross Hammersley
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Traverse City, MI
    Occupation: Land Use, Agriculture & Environmental Law Attorney
    Comment: Over the past 40 years a new breed of farmer has developed 
highly sophisticated ways of farming with nature that promote soil 
health, higher nutrient value of food and increased farm income.
    In order to meet the serious challenges of the 21st century, U.S. 
agricultural policy in the farm bill must shift from its focus of 
creating cheap commodities and artificially propping up income for 
farmers, toward implementing best agricultural practices for 
sustainable and organic production methods.
    I support:

    (1) the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286);

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs;

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236); and

    (4) Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Holly Hampton
    Date Submitted: Friday, May 18, 2012, 3:14 p.m.
    City, State: San Francisco, CA
    Comment:Please support funding for organic food and farming 
research. This is the only sensible way to ensure that our nation's 
food supply is not completely overtaken by Big Agriculture's GMO 
practices. All citizens of this country deserve to have their food 
truly safe and free from any monopoly that endangers our health through 
the use of dangerous pesticides and gene manipulation. Don't mess with 
Mother Nature--respect her!
    Thank you for reading this.
                                 ______
                                 
                 Joinnt Comment of Steve & Mary Hampton
    Date Submitted: Friday, May 11, 2012, 9:06 p.m.
    City, State: Seminole, FL
    Occupation: Retired Educator & Retired Wall Street Trader
    Comment: We are writing on May 11, 2012, to express our interest in 
the creation of a wonderful Food and Farm Bill. We believe this Bill 
would create jobs and spur economic growth. We believe this Bill would 
make healthy food widely available to All Americans, including school 
children. We believe this Bill would help protect our natural 
resources. We need to protect the Conservation Stewardship Program from 
unfair funding cuts. Our farmers need conservation programs to conserve 
soil for future generations. We also need habitat to be created/
preserved for wildlife.
    We believe the Food and Farm Bill represents an investment in the 
next generation of farmers and ranchers. We believe that $25 million 
per year needs to be set up in mandatory funding for the Beginning 
Farmer & Rancher Development Program. We, obviously, need a national 
strategy and commitment to support beginning farmers and ranchers who 
are entering agricultural careers.
    Finally, the Food and Farm Bill will serve to drive innovation for 
tomorrow's farmers and food entrepreneurs. The Organic Agricultural 
Research & Extension Initiative needs to be funded at $30 million/year 
in mandatory funding. Investing in agricultural research is vital to 
continued productivity and innovation in growing and diverse sectors of 
American agriculture, such as organic agriculture.
    We look forward to hearing that the U.S. Congress will take these 
recommended actions to create the 2012 Farm & Food Bill.
            With best regards,

Steve & Mary Hampton.
                                 ______
                                 
                        Comment of Judith Hance
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: Seattle, WA
    Occupation: Retired
    Comment: Food, its production and safety in growing and in eating, 
is one of the most important things in our lives. Government is the 
only agency that can insure the current and future safety of our food 
supply. In addition, we must encourage young people to be involved in 
the agricultural community.
    To cut back funding in this area is dangerous.
    If you have children, grandchildren, or know any children, or even 
care at all about the health of all our citizens, please be aware of 
the risks to our current and future welfare as a nation by cutting back 
on funding in this vital area.
                                 ______
                                 
                        Comments of Judith Hand
    Date Submitted: Friday, April 27, 2012, 12:21 p.m.
    City, State: Daytona Beach, FL
    Occupation: Retired, Disabled
    Comment: I worked all of my life, many years in social service, 
until my disability prevented continuance. I live in an area that is 
well below the poverty level and am personally grateful that my church 
has included a food pantry in their ministries. I think this is the 
`poorest' I've ever been. This area needs help and supporting our 
agricultural resources and food delivery is essential. I've never seen 
so many homeless as I have since living both on the mainland and even 
beachside of Daytona Beach, FL. Please support our producers, pave the 
way for advocates and help those in the glut of low (and no-, many 
through no fault of their own) in our area. Thank you!
    Date Submitted: Saturday, May 12, 2012, 1:36 p.m. Daytona Beach FL
    Comment: At 54 years of age, and no longer working due to 
unexpected disability, I have more time than some to consider issues 
such as you examine and work with daily. Years ago, I attended town 
meetings in North Dakota and was struck by the hardships on family 
farms because of the preferences granted large farms. While still 
working in and for the State of Florida, I encountered a client whose 
work entailed gathering ferns in western Volusia County and saw the 
conditions that he and others faced. While on a committee that joined 
Flagler and Volusia counties, I learned of the outbreak of (untreated 
and unaddressed) ill health including AIDS on the farms along Rte. 100 
from Bunnell to St. John's county. I've lived in Florida almost 25 
years and have seen and lived near more poor people than in my 29 years 
prior. I've learned about and have gratefully benefitted from a couple 
of food banks in this area. We have a big problem here and one that is 
not being addressed. We need to focus on our poor, on those who have no 
access to nutrition and the important agricultural products that we 
grow right here in our State. We must stop relying on making money from 
other States when ours needs our agricultural products so desperately. 
When I was doing care giving for seniors, granted many had nutritive 
diets because they had the funds (or they wouldn't have been able to 
afford the care giving). Since then, I've met many, many seniors 
without such wealth who are literally living hand-to-mouth. We cannot 
continue to act as though these folks are few and far between, because 
they are NOT. It is not something we want to face, but we must. As a 
Democrat, I don't know how Republicans address these problems. But it 
is our reality in Congressional District 24. I've never seen so many 
homeless. It is usually no fault of theirs--we must change that point 
of view! There are many who don't have families to assist them, who 
have lost jobs due to the economy not supporting them (and employers 
hiding behind the ``Right To Work State'' ethic don't help), who have 
mental illness that isn't addressed and medicated . . . how do we help 
our citizens if we continue to yell ``small government!'' and just 
swipe them aside as unfortunates?! They are our neighbors, our friends, 
our former coworkers. How can we sit on our committees without taking 
seriously the desperate needs of those around us? Thank you!
                                 ______
                                 
                         Comment of Neal Handly
    Date Submitted: Saturday, May 19, 2012, 2:54 p.m.
    City, State: Furnace, PA
    Comment: I am concerned that the support for industrial level 
farming is far too great. Subsidies for pricing of regular commodity 
products need to be phased out.
    At the same time, the government does have a role in making sure 
that choice is possible. Organic farms need to find markets as well, 
but should not be inhibited by laws that are designed for the large 
commodity farming industry.
    Labeling is important--consumers should know what they are buying 
so that they can approach the market with knowledge.
    Thank you.
                                 ______
                                 
                        Comments of Helen Hanna
    Date Submitted: Friday, May 11, 2012 10:40 a.m.
    City, State: Sacramento, CA
    Occupation: Retired Educator
    Comment: We need a farm bill that encourages small family farms and 
that protects our natural resources. Please protect the Conservation 
Stewardship Program from unfair funding cuts, and improve it by ranking 
applications solely on their conservation benefits. Farmers count on 
this and other conservation programs to conserve soil for future 
generations, keep water and air clean, and create habitat for wildlife.
    Date Submitted: Friday, May 18, 2012, 2:50 p.m.
    Comment: It is time for a farm bill that recognizes the needs of 
small family farmers who grow organic produce and take care of the soil 
in harmony with nature, instead of subsidizing and rewarding huge 
monocultures dependent upon the chemicals that are polluting our water 
and soil and even killing the bees on which our survival eventually 
depends. Our government should be smarter about this, starting now.
                                 ______
                                 
                       Comment of Avery Hanneken
    Date Submitted: Saturday, May 19, 2012, 7:20 a.m.
    City, State: Holland, MI
    Occupation: Professional Painter
    Comment: Please continue to support local farmers and local 
communities raise healthy food for people who want to make that choice. 
Besides aiding the farmers, keeping the monetary aspect in town, 
providing healthy food choices for families, it is just the right thing 
to do. Can't we please just make the right choice, the obvious choice 
for ourselves. Raising organic/healthy food and choosing what goes in 
our bodies is a freedom that should always be able to be explored. 
Please for my family and many more, help us out and support simple/
healthy living. It just seems instinctively right.
                                 ______
                                 
                       Comment of Tracy Hannemann
    Date Submitted: Friday, May 18, 2012, 1:10 p.m.
    City, State: Milwaukee, WI
    Occupation: Singer
    Comment: I come from a long line of farmers, at least four 
generations. I also work for produce once a week on a farm in the 
Milwaukee area. Two of my brothers are currently farming. Although they 
are not organic farms, they would like to go in that direction, but the 
transition is so hard to do and expensive. They don't like having to 
use Monsanto based seed or fertilizer either. I want to see support of 
those farmers as well that decide to not only provide organic produce 
for others, but in turn help the environment by making a strong and 
difficult choice to farm organically. Many people care about this and 
want to go this route, but it seems the powers that be would rather not 
have that happen. Start support for natural, chemical free farming, 
farmers and people instead of large corporations whose main interest is 
in profit at the cost of people's health and this Earth.
                                 ______
                                 
                      Comment of Margaret Hannigan
    Date Submitted: Friday, May 18, 2012, 12:18 p.m.
    City, State: Milford, MA
    Occupation: Retired
    Comment: I am concerned that many large agricultural companies are 
ruining this country's soil and adversely affecting the health of U.S. 
citizens with their unchecked use of toxic chemicals, unneeded use of 
antibiotics and failure to utilize sound conservation methods. If this 
farm bill is to serve all Americans, it should include monies for 
conservation and sustainable agricultural methods.
                                 ______
                                 
                        Comment of Joyce Hannum
    Date Submitted: Friday, May 18, 2012, 5:01 p.m.
    City, State: Union, WA
    Occupation: Whole Foods Cook
    Comment: PLEASE, no more entitlements for corporate agribusiness! 
Please limit crop insurance subsidies. I Support small organic 
sustainable farms. Our Soil Is More Than Just Dirt! It is a living 
microcosm upon which our entire life depends. We Must protect it.
                                 ______
                                 
                       Comment of Robert Hansard
    Date Submitted: Sunday, May 06, 2012, 7:35 p.m.
    City, State: Palm Bay, FL
    Occupation: C.N.A.
    Comment: I think we should try getting them on more sustainable 
plant based diets, they'll be healthier for it. We shouldn't be feeding 
anyone the factory farmed diseased tortured animals anymore, it's 
unsustainable and it's contaminating all the land and waterways, and is 
the reason we have so many starving people. There are about 7 billion 
human beings on the planet, and around 65 billion land animals are 
being raised each year worldwide for human consumption. that's almost 
100 times more enslaved animals than humans covering \1/3\ of the 
Earth's land surface: 1 lb of beef cost over 5.200 gallons of water.
                                 ______
                                 
                         Comment of Amy Hansen
    Date Submitted: Friday, May 18, 2012, 12:28 p.m.
    City, State: Far Hills, NJ
    Occupation: Policy Analyst, New Jersey Conservation Foundation
    Comment: Dear Congressman Frelinghuysen and Members of the House 
Committee on Agriculture:

    New Jersey Conservation Foundation is a 50 year old statewide 
conservation organization. We have used funding from the Farm and Ranch 
Lands Protection Program (FRPP) to help protect thousands of acres of 
New Jersey farmland. Thank you for considering our comments on the 2012 
Farm Bill.
    We urge you to support the Senate funding levels for Agricultural 
Land Easements, which include the FRPP easements. These easements 
advance the proven model of leveraging Federal funds through local 
partners to secure perpetual conservation easements that help keep farm 
and ranch lands in production, while conserving important natural 
resources.
    In addition to fully funding conservation easement programs, we 
urge you to retain the existing FRPP fund-match formula to encourage 
bargain sales and allow waivers of the match requirements for strategic 
projects.
    It is also important to restore language in the easement program 
clarifying that the Federal government is not acquiring a real property 
interest and has only a ``contingent right of enforcement,'' should the 
cooperating entity fail to enforce its easement.
    We also respectfully ask you to make this farm bill one that 
creates jobs and spurs economic growth by supporting programs like the 
Value-Added Producer Grants Program at a guaranteed leve of $30 million 
of mandatory funding per year. VAPG provides seed money to help farmers 
innovate in agriculture and create jobs while securing a sustainable 
path to market-based farm profitability.
    America needs a farm bill that makes healthy food widely available 
to all Americans--including schoolchildren! We must provide flexibility 
for states to use existing food procurement programs to purchase fresh, 
healthy food from local farmers and ranchers.
    It is so important that the 2012 Farm Bill strongly protects our 
natural resources. Please fully fund the Conservation Stewardship 
Program and improve it by ranking applications solely on their 
conservation benefits. Farmers count on CSP and other conservation 
programs to conserve soil for future generations, keep water and air 
clean, and create habitat for wildlife--all while farming profitably.
    Our country needs a farm bill that invests in the next generation 
of farmers and ranchers--we urge you to guarantee $25 million per year 
in mandatory funding for the Beginning Farmer and Rancher Development 
Program. We need a national strategy and commitment to support 
beginning farmer and ranchers entering agriculture. With an aging farm 
population, now is the time to invest in the future of American 
agriculture by nurturing new sustainable agriculture start-ups.
    Please make the 2012 Farm Bill help drive innovation for tomorrow's 
farmers and food entrepreneurs by funding the Organic Agriculture 
Research and Extension Initiative at $30 million per year in mandatory 
funding. Investment in agricultural research is vital to continued 
productivity and innovation in growing and diverse sectors of American 
agriculture, such as organic agriculture.
    Thank you very much for providing an opportunity to comment on this 
very important issue.
            Sincerely,

Amy Hansen,
Policy Analyst
New Jersey Conservation Foundation,
[Redacted],
Far Hills NJ.
                                 ______
                                 
                         Comment of Jan Hansen
    Date Submitted: Saturday, May 19, 2012, 11:44 a.m.
    City, State: Somerset, CA
    Occupation: Retired
    Comment: Switch the focus from big corporate agribusiness to small, 
local farmers. Use more funds for sustainable, organic farming that 
protects our valuable water systems from run-off.
                                 ______
                                 
                      Comment of Jeremy A. Hansen
    Date Submitted: Friday, May 18, 2012, 4:01 p.m.
    City, State: Montpelier, VT
    Occupation: Professor
    Comment: While I am not a producer of food for sale, I do grow some 
of my own organic vegetables and fruit and raise chickens for organic 
eggs.
    It is unfortunate that it has been the position of the U.S. 
Government to subsidize large agribusinesses and stand idly by while 
small producers are driven away by the virtual monopolies the large 
producers are given.
    It is doubly unfortunate that more resources have not been provided 
for research in sustainable and organic agriculture. By supporting the 
creation of a decentralized food production system where every American 
citizen is given the opportunity to participate, we can lead the U.S. 
into a future where food production continues to be a robust and useful 
portion of our economy.
    As a final note, I wholeheartedly endorse the improvement of food 
labeling, particularly in terms of GMO ingredients and detected 
pesticide levels.
    Thank you for your consideration!

    Prof. Jeremy A. Hansen.
                                 ______
                                 
                Joint Comment of Jerry and Joyce Hansen
    Date Submitted: Friday, May 18, 2012, 1:38 p.m.
    City, State: Ferryville, WI
    Producer/Non-producer: Producer
    Type: Dairy, Field Crops, Livestock
    Size: 50-150 acres
    Comment: By failing to place limitations on crop insurance 
subsidies and to re-attach soil erosion and wetland conservation 
requirements to crop insurance programs, the Committee has failed to do 
the full reform that is needed.

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Republicans in the House Agricultural Committee have already 
``voted to slash $33 billion from the food stamp program while leaving 
farm subsidies unscathed. This is unconscionable in our present 
economy. Please consider all our citizens when you vote, not the 
entitled few agribusinesses.''
                                 ______
                                 
                       Comment of Matthew Hansen
    Date Submitted: Friday, May 18, 2012, 1:31 p.m.
    City, State: Kentfield, CA
    Occupation: Auto Mechanic
    Comment: We must break the stranglehold of agribusiness giants like 
Monsanto that could not care less about what havoc their practices 
wreak on the planet or the food chain, nor what destruction they bring 
to the small family and sustenance farmers. I don't want to consume the 
garbage they produce or have it affect what I choose to put on my 
family's table.
    Thank you.
                                 ______
                                 
                        Comment of Mitch Hansen
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Nashville, TN
    Occupation: Lighting Director
    Comment: As a consumer of agriculture, I'm very concerned about the 
processes and method by which my food is produced. We need strict 
labeling on our food supply, so consumers can make informed choices as 
to what they put into their bodies. This is not a political agenda; it 
falls much closer to an economic demand. This is what the market is 
asking for, we should drive that economic opportunity by giving it to 
them.
                                 ______
                                 
                        Comment of Yvonne Hansen
    Date Submitted: Friday, May 11, 2012, 10:34 a.m.
    City, State: Austin, TX
    Occupation: Retired
    Comment: Remove any and all barriers to growing food locally and 
organically, and to educating youth in all phases of food, including 
strategies to ensure food security.
    Fund research that examines differences in level of health (absence 
of temporary or chronic diseases) between individuals who eat 
industrial, mass produced foods and organic or pesticide and GMO free 
food. Then publish results. Determine what essential components found 
in whole foods and not found in processed, industrial foods that lead 
to a sense of satisfaction and `I'm full' that says stop eating more 
food. What component is removed that triggers the sense of fullness and 
satisfaction?
                                 ______
                                 
                         Comment of Anne Hanson
    Date Submitted: Friday, May 18, 2012, 2:30 p.m.
    City, State: Florida, NY
    Occupation: Retired
    Comment: I have a little garden. I shop at health food stores and 
farmer's markets. We create our meals from scratch. I seek organic 
produce and meat in the supermarket. We keep chickens that lay eggs. In 
other words, I try to avoid all the additives in the so-called normal 
food supply.
    Surely you care about the health of the nation more than the bottom 
line of the big farms whose practices pollute air and water and 
endanger citizens. All the substances eaten and breathed and drunk add 
up.
                                 ______
                                 
                        Comment of Laurie Hanson
    Date Submitted: Saturday, May 19, 2012, 1:36 p.m.
    City, State: Chicago, IL
    Occupation: Flight Attendant
    Comment: Farm policy should be simple and straight forward. No GMOs 
and no pesticides! Have you done your research? The results are already 
in. Hormonal disruption and DNA mutation related cancers in both men 
and women exposed to GMO's and pesticides. Even in ``limited'' usage, 
the ``drifting'' of seed and pesticides into organic fields and water 
ways will yield the same results. There are sound reasons why the EU 
countries ban the use of these. We must stand firm. Our health and the 
health of our Earth, and the health of our future generations are at 
stake. There are no short term economic benefits worth such dyer long-
term consequences. Please stand firm and only support a farm bill that 
will sustain the future health of the farm, the farmer, the Earth, and 
it's populace without any GMOs and pesticides. Thank you.
                                 ______
                                 
                       Comment of Melissa Hanson
    Date Submitted: Sunday, May 20, 2012, 11:15 p.m.
    City, State: Atascadero, CA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a young farmer 
and I'd like to share my support for programs that help the next 
generation of growers build strong farm businesses. As it's estimated 
that 125,000 farmers will retire in the next 5 years, it's absolutely 
critical that farm bill programs help citizens get started in this 
challenging field. I want my children and their children to be able to 
eat fresh, wholesome, local food, and we need an army of farmers to 
make that possible. Our greatest challenge as beginning farmers is 
access to land and capital. It is nearly impossible today for a young 
farmer to access the land and tools they need to start a successful 
farm. Through funding the BFRDA and the other programs mentioned below, 
beginning farmers may actually have a fighting chance of having a 
financially sustainable business which provides them with a dignified 
livelihood as well as food and jobs for their community. The systems 
currently in place tend to favor large, industrial agriculture that is 
poisoning our land and communities. If we want our society to thrive, 
we need to realign our focus onto small, sustainable farms, and support 
the farmers who are working on them. I ask that the Committee endorse 
all of the provisions of the Beginning Farmer and Rancher Opportunity 
Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Melissa Hanson.
                                 ______
                                 
                       Comment of Michelle Hanson
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: Chatham, IL
    Occupation: Student
    Comment: I buy a lot of fresh vegetables from farmers. I have 
relatives that grow their own and sell the rest. This is much healthier 
than much of what we buy in the store. Please save our organic sources.
                                 ______
                                 
                       Comment of Paul R. Hanson
    Date Submitted: Monday, May 14, 2012, 12:57 p.m.
    City, State: Mayville, ND
    Occupation: Locked Out Worker, presently a Senior Research Analyst 
at UND
    Comment: Honorable House Members,

    I am writing in regards to upcoming Sugar Act legislation.
    It would be easy to assume a bias on this position considering I am 
a locked out worker from American Crystal's processing plant in 
Hillsboro North Dakota and as a beginning farmer was unable to compete 
with those that had privileged access to markets. However, there are 
compelling reasons to question the continuation of protectionist sugar 
legislation.
    The domestic sugar industry is mature. Early legislation was 
enacted in part due to the extreme hard physical work necessary to 
produce and refine the crop. Now, modern and efficient machinery have 
made dramatic improvements. Except for the rare circumstances when wet 
fields make for harvest nightmares, the physical demands have been 
eliminated.
    Since the earliest sugar legislation was enacted in the 1930's, the 
industry has experienced nearly uninterrupted protection. That means 
the industry has had ample time to prepare for self sustenance. It is 
difficult to identify other farm commodities that receive price 
protection with the dimensions of sugar; corn, soybeans, wheat and oil 
seeds have been competing in the world market for decades.
    Sugar beet (and cane) processing schemes have been around for more 
than a century. The decades of protection have eliminated the need for 
more sophisticated technologies. There hasn't been a sense of urgency. 
As a chemist in a laboratory, my job was to calculate daily factory 
through puts and efficiencies. A sugar beet factory works well for only 
about 75% of the time. Very little has been done in terms of processing 
improvements. Meanwhile, the public is forced to endure obnoxious 
odors, the effects of large amount of green house gas and mercury 
emissions, and wasteful use of precious energy.
    It would seem that for the sake of survival, industries would find 
the need to become more efficient. Has the protectionist sugar 
legislation pre-empted the need for the domestic industry to modernize 
and become responsible citizens in the environment?
    We must seriously consider the possibility of opening our doors to 
third world and developing countries. A chance to raise the standard of 
living for those in beleaguered countries is appealing. There is an 
adequate supply of sugar in Central America, the Caribbean nations and 
our friends in the European Union to supply our domestic needs.
    Please consider these thoughts in your deliberations.

Paul R. Hanson
[Redacted],
Mayville, ND,
[Redacted].
                                 ______
                                 
                         Comment of Allyn Harad
    Date Submitted: Wednesday, April 11, 2012, 8:12 p.m.
    City, State: Albuquerque, NM
    Occupation: School Counselor
    Comment: We help feed more than 70 families per week who otherwise 
would go hungry over the weekends. The children especially are hungry 
and do not have control over their parents budget. It is essential that 
we have enough food to help our children grow and develop in good 
health.
                                 ______
                                 
                     Comment of Sabrina Hardenbergh
    Date Submitted: Sunday, May 20, 2012, 2:40 p.m.
    City, State: Carbondale, IL
    Occupation: Research (Health, Nutrition, Food Security)
    Comment: A number of people where I live, including myself, are 
interested to see more support for organic, bio-ecological, regional 
and agroecology orientation in agriculture and food security processes. 
Please orient to this small-scale sector, and stop putting such major 
emphasis on ``Big-Agriculture'' and the corporate sector in our 
education, market, local to international development, and farm 
extension systems. The UN recently has noted the importance of 
agroecology, the likes of which fit what I witnessed during 
international conservation-development health/nutrition research in 
Madagascar 2 decades ago, as well as what people are concerned about 
here at home in southern Illinois. But our local institutions do not 
mirror this path, since they are more driven by corporate sponsorship 
and goals. Are we a land for the people, or the corporations (that make 
wild claims for personhood and their goals at the expense of public and 
ecological health, and even broader fiscal health)?

        http://www.un.org/apps/news/story.asp?NewsID=37704&Cr=farming.*
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
                                 ______
                                 
                        Comment of Susan Harder
    Date Submitted: Friday, May 18, 2012, 1:28 p.m.
    City, State: Utica, OH
    Occupation: Finance Manager
    Comment: I am a Mother of 5 ages 27-8, Grandmother of 4 ages 7-1 
with 2 on the way.
    I am continually dismayed at how the American family is being 
bombarded with food that is not safe or nutritious. My husband and I 
have recently moved to a 23 acre property so that we can start 
generating our own food for us and our loved ones. Thank God that we 
are able to do this, but what about the families that can't do this? 
Where the husband and wife both work and don't have the time or 
knowledge to grow and preserve food? There is a sense of betrayal that 
is being felt by the food producers who would like to provide food that 
is healthy and the people who look at a 99 cent bottle of ketchup that 
has GMO corn syrup in it and then look at the $4.00 bottle of organic 
ketchup and has to choose the cheaper one because they can't afford the 
extra money. I have been that person and sometimes still am. I 
understand driving an older car, living in a smaller house or not 
having cable service to make money stretch, but we should not have to 
give up the health of our children or ourselves just to be able to 
afford to feed everyone. Our laws should make it easier for the organic 
and small farms to survive and more difficult for big ag to push laws 
and small farms out of business. If our politicians keep neglecting the 
desires of the people, either they won't be in office long term or they 
will lose the ability to choose healthy foods themselves. Haven't we 
given up enough freedoms? Please help the families and the small 
organic farms of Ohio.
                                 ______
                                 
                         Comment of Fran Hardy
    Date Submitted: Sunday, May 20, 2012, 11:55 a.m.
    City, State: Lamy, NM
    Occupation: Environmental Artist
    Comment: Please write a bill that supports small family farms, 
organic producers and protects the public from GMO planting and the 
heavy use of pesticides they encourage. Don't create a bill that 
penalizes the small local family farm with undue burdens that are of no 
import to large scale agribusiness.
                                 ______
                                 
                        Comment of Ingrid Hardy
    Date Submitted: Saturday, May 19, 2012, 1:37 a.m.
    City, State: Sedona, AZ
    Occupation: Self-Employed
    Comment: Dear Ones,

    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    To me and many Americans, there is nothing more important than 
eating healthy, labeled, non-gmo, organic, food that is produced by 
farmers that are paid fair wages and that have uncontaminated fields 
from Monsanto.
    If you want to eat what you think is ``fine'' for consumption, go 
ahead, yet I urge you, to make sure that every American can choose what 
they eat.
    May I remind you that you are not above, but work for ``The 
People''. You are there to make sure to implement what the people want. 
This has shifted now to making sure that the corporations get what they 
want. I know they have strangely elevated themselves to being 
``people'', yet they are nothing but a corporation that only answer to 
their shareholders. You are here to serve the interest of ``The 
People''.
            Thank you for your time,

Ingrid.
                                 ______
                                 
                          Comment of Dan Hare
    Date Submitted: Friday, May 18, 2012, 5:15 p.m.
    City, State: Longmont, CO
    Occupation: Field Biologist
    Comment: I would like to see a farm bill that supports sustainable 
agriculture like poly-culture or seasonal multi-cropping and 
permaculture. I would also like to see real support for Holistic 
Management practices on our prairies and rangelands founded by Savory 
Institute and Holistic Management International.
                                 ______
                                 
                        Comment of Jim Harkness
    Date Submitted: Friday, May 18, 2012, 2:41 p.m.
    City, State: Minneapolis, MN
    Occupation: President, Institute for Agriculture and Trade Policy
    Comment: The Institute for Agriculture and Trade Policy, a 25 year 
non profit organization based in Minnesota, asks that the House 
Agriculture Committee to include the following proposals in the farm 
bill:

  <bullet> Re-couple conservation compliance with crop insurance. 
        Unless Congress reconnects crop insurance subsidies to 
        conservation compliance, a significant part of farmers' 
        incentive to follow conservation plans will disappear this year 
        if direct payments are removed.

  <bullet> Full funding for the SNAP program that protects against 
        hunger and improves nutrition by providing critical resources 
        to vulnerable people. Cuts to SNAP will only make it harder for 
        millions of families to afford a nutritious diet.

  <bullet> Adopt the National Farmers Union proposal for a Market 
        Driven Inventory System in the Commodity Title, that would both 
        save money for taxpayers and help ensure a safety net for 
        farmers.

  <bullet> Better, more affordable crop insurance for organic farmers 
        that helps reduce the increased financial risk of growing 
        organic crops, which reduce the use of harmful chemicals that 
        endanger human health and the environment.

  <bullet> A House version of Senator Leahy's public health reporting 
        amendment which would require USDA to report on the public 
        health impacts of Federal agricultural policies.

  <bullet> Full funding for the 2501 Outreach and Technical Assistance 
        for Socially Disadvantaged Farmers and Ranchers Program. This 
        program is a small effort to correct the policy barriers and 
        institutional biases that farmers of color have faced for 
        decades.

  <bullet> Support the Packer Ban that prohibits a meatpacker to own, 
        feed or control livestock intended for slaughter, and helps to 
        ensure transparency and competition in the marketplace.

  <bullet> Ensure and fully fund existing programs allow and encourage 
        schools to choose fresh, healthy, local food for 
        schoolchildren.

  <bullet> Direct the USDA to create Whole Farm Diversified Risk 
        Management Insurance products for diversified farming 
        operations.

  <bullet> Support the expansion of local and regional procurement of 
        all international food aid. We strongly encourage you to 
        maintain and expand authorities currently provided on a pilot 
        basis under Sec. 3206 of the 2008 Farm Bill and to establish 
        that initiative as a permanent program. Authorized funding 
        should be set at no less than $40 million annually.

  <bullet> Follow the leadership of the Conrad-Lugar bill that creates 
        mandatory funding programs for core programs, like the Biomass 
        Crop Assistance Program, in the Energy Title of the farm bill.

    We look forward to working with you and your staff as this process 
continues. Thank you for considering these proposals.

Jim Harkness,
 President,
Institute for Agriculture and Trade Policy.
                                 ______
                                 
                         Comment of Lynn Harmet
    Date Submitted: Friday, May 18, 2012, 12:14 p.m.
    City, State: Madison, WI
    Occupation: Retired
    Comment: It's time to end subsidies for corn, soy, and dairy. 
Please take the lead in making healthy plants affordable to all 
Americans. This will help us solve our huge public health problems as 
well as support smaller farmers. Thanks.
                                 ______
                                 
                      Comment of Katherine Harper
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: Playa del Rey, CA
    Occupation: Teacher
    Comment: Why would you want to allow big business to poison your 
nation? Do you want your own children, grandchildren and generations to 
eat toxic foods? Do you personally want to eat toxic GMO's and unsafe 
food for the rest of your own life. Think about the dire, long-range 
ramifications of supporting unsafe agribusiness Please! Support a safe 
food bill and battle against GMOs. Thank you.
                                 ______
                                 
                         Comment of Terry Harr
    Date Submitted: Friday, May 18, 2012, 1:13 p.m.
    City, State: St. Louis, MO
    Occupation: Construction
    Comment: You are Not God, you have No right to tamper with our 
food, don't add nothing to our food, we don't want imported food, we 
don't want our food sprayed with chemicals that give us cancer, we need 
workers in the fields to grow our food, we want all organic food, quit 
killing us.
                                 ______
                                 
                        Comment of Cathy Harris
    Date Submitted: Friday, May 18, 2012, 1:43 p.m.
    City, State: Vancouver, WA
    Occupation: Retired-Education
    Comment: There are too many ``auto-immune'' diseases in our lives 
these days including my granddaughter's rheumatoid arthritis (age 2) 
along with increase in autism that can't be explained. It just makes 
sense that the food we fill our bodies with and the air we breathe has 
to be affecting all people. We must be protected from chemicals and 
pollution to be a healthy, intelligent nation.
                                 ______
                                 
                       Comment of Jack H. Harris
    Date Submitted: Thursday, May 17, 2012, 10:46 a.m.
    City, State: St. Louis, MO
    Occupation: Retired
    Comment: TO: House Agriculture Committee

    As the House Agricultural Committee prepares your draft of the farm 
bill, I urge you to restore the link between taxpayer-supported 
subsidies for crop insurance and conservation compliance protections 
that will protect the nation's water and land.
    This action is especially important as Congress considers 
eliminating direct payments, the major subsidy program that is linked 
to conservation compliance, and moving some of those funds to support 
increased subsidies for crop insurance, which lacks compliance 
requirements. Unless you help to reconnect crop insurance subsidies to 
conservation compliance, a significant part of farmers' incentive to 
follow conservation plans will vanish this year.
    Farmers need crop insurance as part of their safety net and the 
public needs basic conservation practices on farms to make sure that 
quality farmland and water can support future generations as well as 
the current needs of our country. We cannot accept sacrificing long-
term economic and environmental sustainability for short-sighted and 
short-term economic profits.
    Connecting eligibility for crop insurance subsidies to conservation 
compliance is fiscally responsible and ensures public subsidies for 
farmers' insurance premium payments align with the public's interest in 
basic conservation of our soil and water. Missouri consistently ranks 
in the top five for soil loss, losing more than 5 tons per acre per 
year, so we have a lot to gain.
            Sincerely,

Jack H. Harris.
                                 ______
                                 
                         Comment of John Harris
    Date Submitted: Friday, May 18, 2012, 12:11 p.m.
    City, State: Lansing, MI
    Occupation: Executive, Printing Company
    Comment: Rather than cut 1 from food stamps, cut all subsidies to 
any farmer or farming corporation who exceeds $250,000 in profit in the 
year or preceding year. End all farm insurance payments for any farming 
entity that exceeded $500,000 in profits in any of the preceding 2 
years. End all subsidies or insurance payments entirely for any reason 
for genetically modified (GM) crops which have never been tested to be 
safe for consumption over the long term (three generations) and which 
poison the soil with herbicides. If you must have subsidies for farmers 
make them widely available for organic farming which makes more 
nutritious food for Americans and enriches soils rather than depleting 
and poisoning the soil as GM crops do.
                                 ______
                                 
                        Comment of Karen Harris
    Date Submitted: Saturday, May 19, 2012, 12:07 p.m.
    City, State: Fayetteville, AR
    Occupation: Counselor/Educator
    Comment: Food, farming, agriculture and being good stewards of the 
Earth we have been given are in my opinion the Most important topics 
facing our country. All other ``issues'' ripple outward from what we do 
with the basics.
    I have worked in ``at risk'' school districts and seen generational 
poverty. There are so many people who would rejoice in the opportunity 
to work hard and eat healthy and live abundantly if they had the 
chance. Generational poverty kills those opportunities. There is 
poverty of even knowing what healthy food is or how we are connected to 
the Earth from which it comes. This is a large and complicated problem 
I realize, but change comes in very simple and small steps in the right 
direction. Those who want to work the Earth and put in the blood, sweat 
and tears that goes into it should be able to reap the rewards fully 
from their labor. The rest of us will reap the rewards as well. Please 
do everything you can to plant the seeds of change that will not only 
benefit this generation but all those who might follow.
                                 ______
                                 
                       Comment of Melissa Harris
    Date Submitted: Friday, May 18, 2012, 12:37 p.m.
    City, State: Nashville, TN
    Occupation: Consulting Company
    Comment: Please support a fair and healthy farm bill.
    Earlier this year more than 30,000 Food Democracy Now! members 
signed a letter calling for an Organic Farm Bill. The letter was an 
idealized version of what a growing number of Americans are beginning 
to realize: that U.S. food and agricultural policy must focus on 
adopting best agricultural practices that put the health of its 
citizens, the land and the livelihood of farmers and farmworkers over 
the interests of industrial agriculture lobbyists.
    Unfortunately, we as a nation are not there yet. Not only are our 
politicians out of touch with the values of the American people, but 
corporate agribusiness has a stranglehold on our regulatory system and 
our political leaders.
    Farmers and eaters across the U.S. benefit from a fair and healthy 
farm bill.
    Please do not cut funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture.

  <bullet> It's time for real reform. I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Myra Harris
    Date Submitted: Monday, March 26, 2012, 10:53 p.m.
    City, State: Northwood, IA
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock
    Size: 1,000+ acres
    Comment: Common Sense Of all things in our world to have a safety 
net for is food. You can't survive without it. This is the most 
important part of the whole ag bill. We are not in control everyone 
tells us what our costs are and what we can get for our product. 
Weather, any little glitch in foreign policy, stock markets, you name 
it. Think can you survive without food, you can get along without 
everything else. Cut direct payments but protect the Federal crop 
insurance.
                                 ______
                                 
                        Comment of Peggy Harris
    Date Submitted: Friday, May 18, 2012, 10:26 p.m.
    City, State: Fork Union, VA
    Occupation: Insurance Agent
    Comment: PLEASE encourage and support our family farms against the 
overpowering influence of the huge agribusiness. We want safe, 
wholesome food, not chemicals which are harmful to our bodies.
                                 ______
                                 
                       Comment of Rebecca Harris
    Date Submitted: Friday, May 18, 2012, 5:04 p.m.
    City, State: Candler, NC
    Occupation: IT Consultant
    Comment: I am one generation removed from a family farm. My father 
still owns a piece of the old family farm. I care about family farmers, 
soil conservation, and environmentally sound farming practices. I am a 
consumer of farm products, being a member of a CSA and truly enjoying 
farm fresh organic produce every week.
    I urge you to support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Sharon Harris
    Date Submitted: Sunday, April 15, 2012, 9:59 p.m.
    City, State: Albuquerque, NM
    Occupation: Retired
    Comment: There are a lot of hungry people right here in the United 
States. They need all the help they can get. And with some talk of 
cutting SS and programs that help the elderly you are going to see more 
need. So please if you haven't ever been poor or lived paycheck to 
paycheck, or just above poverty where you can't receive help. Visit 
some have or are. We need all the help we can get.
                                 ______
                                 
                       Comment of Megan Harrison
    Date Submitted: Friday, May 18, 2012, 11:14 a.m.
    City, State: San Antonio, TX
    Occupation: Artist/Professor
    Comment: Please work on creating transparency in food production. 
It would allow the consumer to make healthier choices. I have a high 
sensitivity to toxins and allergens that greatly affect my health. Many 
chemicals deemed safe for consumption or exposure might need more 
testing.
                                 ______
                                 
                      Comment of Richard Harrison
    Date Submitted: Friday, April 27, 2012, 6:31 p.m.
    City, State: Marblehead, MA
    Producer/Non-producer: Producer
    Type: Field Crops, Fruits, Vegetables
    Size: 50-150 acres
    Comment: We are a mixed vegetable certified organic farm located in 
Montville, Maine, although our permanent residence is in Massachusetts. 
We supply Good Shepherd Food Bank, Maine's source for soup kitchens and 
pantries. We sell to Good Shepherd at a flat rate approximately 50% of 
wholesale so we are supporting the hungry in Maine. We have also 
donated vegetables to local pantries. We hope that you will continue to 
support programs for food for the poor. We can vouch for the fact that 
the need in Maine is dire.
                                 ______
                                 
                      Comment of Patricia Harriss
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Angier, NC
    Occupation: Retired
    Comment: People who want to be healthy, and have done any research 
at all, find that they can't safely consume any products produced by 
factory farms, which is everything in the grocery store. Everything has 
been tainted by pesticides, herbicides, hormones and Genetic 
Engineering. We have to spend a lot of time finding local eggs, meat 
and organic vegetables. We'd buy raw milk if it wasn't against the law. 
My children were raised on it and they are healthier than most people. 
My husband and I are healthier than most people our age (68, 75) and 
are not dependent on any drugs. If everybody could be healthy like us, 
there would be no problem providing free health care to those few that 
needed it. Stop subsidizing corn and soy so that all this junk food 
that's produced with it would dry up. You are contributing to the 
obesity epidemic by subsidizing it. And if you don't stop the Genetic 
Engineering there is going to be a famine in this land. Super weeds and 
super bugs are going to take over. The worst decision ever made was to 
allow patents on seeds. Rescind that law and take the power away from 
Monsanto. They don't care about our health. Do some research for 
yourself and don't depend on them to tell you the truth! Please protect 
us from that giant corporation!
                                 ______
                                 
                        Comment of Maggie Harrs
    Date Submitted: Saturday, May 19, 2012, 10:28 a.m.
    City, State: Sleepy Hollow, NY
    Occupation: Chef
    Comment: 42% of Americans are now considered obese. When will this 
end? The food system in this country is a major part of the problem and 
the solution can start with the food bill. We can no longer operate the 
same way any longer! It's your Job as Members of the House Committee to 
do the Right thing!
                                 ______
                                 
                         Comment of Carole Hart
    Date Submitted: Friday, May 18, 2012, 2:49 p.m.
    City, State: New York, NY
    Occupation: Filmmaker
    Comment: With all the revelations over the past few years of 
heinous violations of safe health practices by big agriculture, it's 
critical that we monitor them and sanction them for their activities or 
lack of them.
                                 ______
                                 
                         Comment of Dannie Hart
    Date Submitted: Friday, March 16, 2012, 8:49 a.m.
    City, State: Tallahassee, FL
    Occupation: Mom
    Comment: I am concerned about the effect of the farm bill on the 
health and variety of our food supply. Continuing to subsidize corn and 
soy skews our food supply in unhealthy directions. Perhaps a 
requirement that no more than a certain percentage of any subsidized 
farm's crops could be planted in either of these commodities would 
improve our health. Too much high fructose corn syrup too cheaply is 
bad for America.
                                 ______
                                 
                        Comment of Jessica Hart
    Date Submitted: Friday, May 18, 2012, 3:43 p.m.
    City, State: Evanston, IL
    Occupation: Clinic, Program, and Administrative Assistant
    Comment: As a consumer, I spend large amounts of money on food. I 
rarely shop at the ``regular'' chain grocery stores because they do not 
carry food I deem safe, non-toxic, environmentally friendly, 
sustainable, fair-trade, etc., etc. I buy largely organic & local 
whenever possible & spend a pretty penny doing so. I'm very concerned 
for those who can not afford this luxury, which is in the best interest 
of my personal health as well the health of our country.
    I fully support all measures for organic & local foods & best 
environmental farm practices. I will not buy GMO laden foods & do not 
support subsidies to Big Ag for products that aren't healthy, safe, or 
farmed in an environmentally sustainable way. We need to throw out our 
current policies & rethink all food policy in this country. It is 
broken & needs immediate attention & support to remake. The time should 
absolutely be now to fix this system.
    Consumers needs should be put before the corporate, greedy 
interests of Big Ag. We need change. We demand change. Policy should 
reflect smart, sustainable, healthy change not the same old broken 
system.
    I fully support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you,
    A very concerned citizen who has not trusted gov't on anything 
pertaining to food her entire adult life. Very sad.
                                 ______
                                 
                        Comment of Spring Hartke
    Date Submitted: Saturday, May 12, 2012, 11:44 a.m.
    City, State: Tacoma, WA
    Occupation: Teacher
    Comment: I believe that it is imperative that we have a farm bill 
that protects our environment. I believe that we, too often, look only 
at the present and ignore the fact that our practices need to protect 
resources for future generations. In addition, I believe that the farm 
bill should be used to support small farmers, particularly organic 
farmers. I do not believe that the farm bill should be used to support 
corporations.
                                 ______
                                 
                        Comment of Kara Hartley
    Date Submitted: Sunday, May 20, 2012, 1:15 a.m.
    City, State: Parker, CO
    Occupation: Customer Service Lead
    Comment: Stop GMO crops and poor animal conditions and pumping them 
with chemicals. Go back to nature where animals had purposes, worked 
with one another and ate what they were supposed to eat. The movie 
Fresh and Food Inc. should be watched by everyone!
                                 ______
                                 
                        Comment of Will Hartzell
    Date Submitted: Friday, May 18, 2012, 2:08 p.m.
    City, State: Bozeman, MT
    Occupation: Acupuncturist
    Comment: We have to all remember that we are talking about 
producing healthy food for the PEOPLE, and that that should be our 
focus, not corporate profits. Awaken your humanity. Remember that 
people, children and grandchildren deserve the chance to grow up 
healthy.
                                 ______
                                 
                        Comment of Lucy Harvest
    Date Submitted: Friday, May 18, 2012, 7:58 p.m.
    City, State: San Antonio, TX
    Occupation: Organic Gardener
    Comment: NO GM food. Already too much cancer and increase in 
children's food allergies! Don't blame on fast food industry . . . 
blame on Monsanto & Chinese pesticides on our food.
                                 ______
                                 
                       Comment of Michael Hasara
    Date Submitted: Friday, May 18, 2012, 3:10 p.m.
    City, State: Columbus, OH
    Occupation: Designer
    Comment: It's tragic, and criminal, the way the FDA and other 
government agencies are treating the small farmers.
    It's obvious that much of the government is corrupt and that big 
business with their piles of cash are running the government.
    This is Not the representation that our officials have been elected 
for by the people. if this situation is not corrected, the people will 
rise up. we will make change occur through our votes and through our 
chooses at the supermarket, and any elected officials that continue to 
support the greedy big business agendas that hurt our country, our food 
quality, and our small farmers will be quickly ousted.

Michael Hasara.
                                 ______
                                 
                        Comment of Zachary Hash
    Date Submitted: Friday, May 18, 2012, 11:08 a.m.
    City, State: Rocky Face, GA
    Occupation: Commercial Insurance
    Comment: Please consider the grave impact of a bad choice regarding 
our nation's food production. A human cannot express it's true 
potential without the proper fuel. I know you wouldn't let you children 
eat sub-par food . . .
                                 ______
                                 
                   Comment of Denise Haskamp-Gebhardt
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: Glasgow, MO
    Occupation: Adjunct Instructor
    Comment: I live in a farming community and often hear farmers 
railing about government bailouts, handouts to the poor, etc., all the 
while receiving government money themselves. Such a disconnect. I do 
firmly believe we need to focus on sustainability and more local 
controls versus big ag. My husband and I consistently shop for organic 
and locally grown, fresh food. Thanks for reading.

Denise Haskamp-Gebhardt.
                                 ______
                                 
                        Comment of Mark Haskins
    Date Submitted: Saturday, May 19, 2012, 9:00 a.m.
    City, State: Encinitas, CA
    Occupation: Primary Care Physician
    Comment: Agricultural subsidies should go to foods that Doctors 
recommend, like fruits and vegetables, not corn and soy. High-fructose 
corn syrup is not a food, has only caloric value, and drives the 
obesity and diabetes epidemics in America. We are paying to poison 
ourselves while the small farmers who produce real food go unassisted! 
Stop the madness of subsidizing illness!
                                 ______
                                 
                       Comment of Joyce Hatfield
    Date Submitted: Friday, May 18, 2012, 12:12 p.m.
    City, State: Meadowlands, MN
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Do not force out the family farm. Children have always 
learned good work habits by working with their parents on the family 
farm. This experience is far more valuable to children than other 
activities that children are apt to become involved with. Children need 
to know where and how their food is grown and produced with hands-on 
experience. Support the children and allow children to work.
                                 ______
                                 
                       Comment of Laura Hatfield
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Woodland Park, CO
    Occupation: Retired
    Comment: As a consumer it is of vital importance to my health and 
the health of this nation to have a strong organic and sustainable 
production of food to our table. Please support legislation that 
considers the small farmer as I believe our health depends on them.
                                 ______
                                 
                        Comment of Ross Hathaway
    Date Submitted: Friday, May 18, 2012, 9:19 p.m.
    City, State: Ithaca, NY
    Occupation: Student Studying Plant Science
    Comment: Instead of subsidizing corn, Europe gives money to farmers 
for doing sustainable practices. If America's industrial farms were 
given money for planting cover crops, this would have an amazing impact 
on our environment. It would sequester a huge amount of carbon. It 
would reduce leaching of fertilizer and pesticides, and it would help 
the farmers' future crops. This is one easy step that would make a 
world of difference.
                                 ______
                                 
                        Comment of Sharon Hatok
    Date Submitted: Friday, May 18, 2012, 5:15 p.m.
    City, State: Santa Ana, CA
    Occupation: Housewife
    Comment: Allowing Monsanto & others to poison our foods is a crime 
& you wonder why there is so much illness in this nation. Please do not 
allow others to harm our food sources with GMO's that our body cannot 
digest because it is not natural food.
    Please stand up for the health of this nation by voting for bills 
that will help us all.
                                 ______
                                 
                        Comment of Robert Haugen
    Date Submitted: Monday, March 19, 2012, 5:35 p.m.
    City, State: La Farge, WI
    Occupation: Food Network Software Programmer
    Comment: I work with groups of farmers who operate cooperative 
local food networks such as the Fifth Season Cooperative in Viroqua, 
WI.
    These networks help small farmers sell their food for a fair price, 
and help local institutions, businesses and consumers to get good local 
food. They also provide an increasing number of non-farm jobs, as the 
networks are starting to develop food processing operations.
    We think the Local Farms, Food, and Jobs Act will help support more 
local food networks and thus more local farms and local jobs in rural 
communities.
    Please include the Local Farms, Food, and Jobs Act in the farm 
bill.
    Thank you very much.
                                 ______
                                 
                        Comment of Sonja Hauter
    Date Submitted: Friday, May 18, 2012, 3:31 p.m.
    City, State: St. Paul, MN
    Occupation: Computer Programmer
    Comment: It is Critical to both the health of the citizens of the 
united states And to our national security that you, our 
representative, help to pass a farm bill that supports small farmers. 
Please help us consumers to be able to purchase the healthy food we 
want from small local farms!
                                 ______
                                 
                        Comment of Kevin Havener
    Date Submitted: Saturday, May 19, 2012, 2:53 p.m.
    City, State: Chicago, IL
    Occupation: Educator
    Comment: Support small and independent farms, Not corporate mega-
farms! Also Monsanto's GMO crop experiment (on 300 million unsuspecting 
Americans) needs to stop Now! Untested and unregulated GMO crops are 
basically environmental and human health pollutants, and should be 
treated as such. Thank you.
                                 ______
                                 
                        Comment of Adrian Havens
    Date Submitted: Friday, May 18, 2012, 12:30 p.m.
    City, State: Norcross, GA
    Occupation: Writer
    Comment: As a consumer, I am becoming more and more alarmed by the 
reports about the practices of big agriculture and the potential 
threats GMOs pose to America's food supply and Americans' health in 
general. Please drive toward more transparency with regard to the 
policies and safety of GMOs and chemical pesticides. Future generations 
depend on it.
    Thank you for your consideration on this matter.
                                 ______
                                 
                       Comment of Courtney Hawkes
    Date Submitted: Friday, May 18, 2012, 9:56 a.m.
    City, State: Cambridge, MA
    Occupation: Management Associate/Backyard Farmer
    Comment: Please support small family farmers and get rid of 
subsidies for factory farms that are producing more corn than we need. 
Move those subsidies to help small farms produce nutritious foods that 
don't need further processing to feed people.
                                 ______
                                 
                        Comment of Eileen Hawkey
    Date Submitted: Friday, May 18, 2012, 3:05 p.m.
    City, State: West Dundee, IL
    Occupation: Mom
    Comment: Dear Members of the House Committee on Agriculture;

    My name is Eileen Hawkey and I'm an adoptive parent to a young man 
who is now 16 years old. His name is Anthony. He came to us when he was 
4\1/2\ years old--already having suffered abuse. He was diagnosed with 
RAD, PSTD, ADD, and Autism. Our life together was very rough. He also 
suffered from a processing problem.
    At the beginning of this year we switched to an organic diet for 
the family. The results are amazing! No pill, talk therapy, educational 
prevention has done what good organic food has done for Anthony. At 16 
he is beginning to have friends and I can honestly say that he will 
become a good citizen. (I had my doubts)
    If you want to bring Americans back to good health Please address 
our food source and the additives allowed in it. Our kids don't want to 
be handicapped by the food they eat.
            Thank you in advance,

Eileen.
                                 ______
                                 
                       Comment of Blanche Hawkins
    Date Submitted: Friday, May 18, 2012, 5:24 p.m.
    City, State: St. Paul, MN
    Occupation: Retired
    Comment: Keep the Conservation measures intact, and get rid of the 
boondoggles of price protections for sugarbeet farmers, corn ethanol 
supports and other measures that make No sense except to put money in 
the pockets of agricultural state legislators.
    Above all, don't cut programs like food stamps, WIC and other aids 
for the impoverished.
                                 ______
                                 
                          Comment of Mark Hay
    Date Submitted: Tuesday, April 24, 2012, 12:32 p.m.
    City, State: Springfield, MO
    Occupation: Donation Coordinator
    Comment: We need a strong farm bill to help put food on the table 
for vulnerable children, elderly and low income families. I ask that 
you pass a bill that strengthens TEFAP, SNAP and CSFP. Cutting these 
programs is not the way to balance the budget. They are a lifeline to 
people struggling in your district. Please make them a priority in the 
next farm bill.
                                 ______
                                 
                      Comment of Mitsuko Hayakawa
    Date Submitted: Sunday, May 20, 2012, 2:15 a.m.
    City, State: Pearl City, HI
    Occupation: Artist/Homemaker/Mother
    Comment: No GMOs and GMO subsidizing. Stringent restrictions on 
chemical application. I do not want chemicals or GM pollutants in the 
soil, water, and air. None of it is helpful to our environment and 
delicate eco-system. Thank you.
                                 ______
                                 
                        Comment of Gerard Hayden
    Date Submitted: Sunday, May 20, 2012, 1:18 p.m.
    City, State: Southold, NY
    Occupation: Chef and Owner of North Fork Table and Inn
    Comment: I am a small business owner of a restaurant in Southold 
Long Island, N.Y. It is a critically acclaimed restaurant because of 
the sourcing of our food products from small organic farms. If Congress 
and the President start stripping away funding from programs that 
assist in promoting healthier more sustainable ways of producing our 
food to try and make up deficit spending. We will be a Nation that has 
clearly lost our way and no longer listens to the people of this great 
country who are moving in a direction to eat healthier and make less of 
a carbon foot print. We need government to get behind small farms and 
sustainable farming practices with the type of funding that is put 
behind Corporate agribusiness. Please for the future of all the 
children in this country use your heads.
                                 ______
                                 
               Joint Comment of Jeannette & James Hayden
    Date Submitted: Thursday, May 10, 2012, 11:43 p.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: Don't throw another $140 billion into subsidies, including 
a brand-new $33 billion ``shallow loss'' entitlement program that 
guarantees business income for a few thousand agribusiness operations 
growing industrial commodity crops.
    How about a program that encourages healthy eating, especially 
among kids? How about supporting small farmers, organic growers?
                                 ______
                                 
                         Comment of Sara Hayden
    Date Submitted: Wednesday, May 09, 2012, 7:17 p.m.
    City, State: Half Moon Bay, CA
    Occupation: Disabled
    Comment: Please protect our small and family farms. I would ask 
that you reconsider all of the subsidy programs you give to large 
corporate producers whose annual revenue clearly indicate they do not 
need subsidies.
                                 ______
                                 
                         Comment of Aisha Hayes
    Date Submitted: Saturday, May 19, 2012, 4:47 p.m.
    City, State: Edgewater Park, NJ
    Occupation: Mother
    Comment: I am requesting that the SNAP program not be cut. It is a 
sad thing to see our own children suffer from hunger as we are eating 3 
& 4 course meals. Hunger puts our children in a place where they can't 
learn & function @ a normal level. When my own children are telling me 
their stomachs are hurting or they have a headache because of hunger 
that hurts. To know these that really need assistance are not eating 
when there are politicians who can serve for one term & have their 
health ins. taken care of for the rest of their lives is ridiculous. 
Please don't cut funding for this program!
                                 ______
                                 
                          Comment of Kim Hayes
    Date Submitted: Thursday, May 17, 2012, 7:54 p.m.
    City, State: McGregor, IA
    Occupation: Independent Contractor
    Comment: Please keep the taxpayer crop insurance linked to the 
conservation compliance. That's the least you can do since you have all 
the big commercial growers on government welfare that is totally 
unnecessary. Get in a plane and fly the Gulf of Mexico, notice that big 
dark spot spewing forth from the Mississippi River. That's South Iowa! 
It got there from all the erosion the welfare farmers in bed with Big 
Ag put it there with their reckless farming practices. We're mining our 
topsoil away to grow commodities instead of food.
    So, the least you can do is force these government welfare farmers 
to think about the water & soil by linking their crop insurance to 
conservation compliances.
                                 ______
                                 
                         Comment of Linda Hayes
    Date Submitted: Friday, May 18, 2012, 11:00 a.m.
    City, State: Philadelphia, PA
    Occupation: Educator
    Comment: Our food is killing more Americans than all our wars 
combined! Imagine if our good conscience was in charge rather than 
corporations and greed. Monsanto and Cargill are the real terrorists!
                                 ______
                                 
                       Comment of Michelle Hayes
    Date Submitted: Friday, May 18, 2012, 2:11 p.m.
    City, State: Livonia, MI
    Occupation: Homemaker
    Comment: Thank you for considering my comments. I fully support 
organic, diverse, and sustainable farming. I will go out of my way to 
purchase organic foods, especially from local sources. I support 
cooperation and reverence for all life. The current model of big, 
industrial farming is not working for the health and well being of all 
living things. We need a paradigm shift. We need to support and nurture 
small scale, local organic farmers/farms. Supporting the local farmers, 
across all states, creates job stability and a better quality of life 
for the farmers. Farming is one of the most important professions in 
the world. It's so simple really--healthy soil, healthy organic diverse 
seeds, clean water, good farming practices = healthy people. We need to 
increase funding to support healthy farming initiatives. Please look at 
the truth/facts carefully and work towards keeping our country vibrant 
and healthy. Thank you.
                                 ______
                                 
                          Comment of Tim Hayes
    Date Submitted: Friday, May 18, 2012, 1:38 p.m.
    City, State: El Cajon, CA
    Occupation: Builder
    Comment: Big Ag has tilted the scale long enough to the tune of 
devastated soil and obese citizens. We need an honest organic bill that 
promotes small, local food production.
                                 ______
                                 
                 Comments of Michael W. Haynes, M.P.A.
    Date Submitted: Friday, April 13, 2012, 2:16 p.m.
    Michael W. Haynes, M.P.A.,
    City, State: Hauppauge, NY.
    Occupation: Coordinator, Gov't Affairs & Public Policy for LI 
Cares, Inc.--The Harry Chapin Food Bank.
    Comment: On behalf of Long Island Cares, Inc.--The Harry Chapin 
Bank we thankfully request that Congress protect and strengthen SNAP, 
TEFAP and other Federal nutrition programs.
    Regarding SNAP, please oppose proposals to cap or reduce SNAP 
funding, restrict eligibility or reduce benefits and support proposals 
to increase benefit adequacy to ensure that households have the 
resources to purchase a nutritionally sound diet. Regarding TEFAP, 
please make mandatory funding for TEFAP food more responsive to changes 
in need by providing a trigger that ties funding to unemployment 
levels. Also, please enhance the Secretary of Agriculture's authority 
to purchase bonus commodities in times of high need for emergency food 
relief in addition to times of low commodity prices so the program is 
responsive both to excess supply and excess demand. Furthermore, please 
reauthorize funding for TEFAP Storage and Distribution Funds at $100 
million per year and TEFAP Infrastructure Grants at $15 million per 
year.
    As Long Island's regional food bank, we annually serve over 320,000 
food insecure persons through our network of community partners 
(kitchens, pantries, emergency shelters, and senior centers). We also 
directly serve 20,000 food insecure persons through our direct service 
programs such as our mobile pantry, mobile outreach units, veterans 
project, and 2 triage pantries. Despite indicators of economic 
recovery, times are still extremely tough on Long Island and our 
agencies still report increases of demand in the 15-25 percent range. 
TEFAP purchases accounted for greater than \1/3\ of the 6.2 million 
pounds of food we distributed in 2011. SNAP and TEFAP are vital to the 
people we serve, and we urge that you fight to at least sustain if not 
bolster these programs that are keeping Long Islanders and Americans 
fed.
    Date Submitted: Tuesday, May 15, 2012, 2012, 1:13 p.m.
    Comment: Dear Chairman Lucas, Ranking Member Peterson, and members 
of the Committee:

    Thank you for the opportunity to provide input on the upcoming farm 
bill reauthorization. Given the increasing need for food assistance in 
our state and the declining supply of Federal commodity support, I 
strongly urge you protect and strengthen nutrition programs in the 2012 
Farm Bill.
    At Long Island Cares, we see every day how important Federal 
nutrition programs are in our community and how effectively they are 
working to ensure that struggling Long Islanders can provide enough 
food for their families. Long Island Cares distributed 6.2 million 
pounds of food to food insecure Long Islanders in 2011.
    Nationally, the Feeding America network of more than 200 food banks 
has seen a 46 percent increase in food bank clients from 2006 to 2010, 
and we are struggling to keep up with increased demand. Without strong 
farm bill nutrition programs like The Emergency Food Assistance Program 
(TEFAP), the Supplemental Nutrition Assistance Program (SNAP), and the 
Commodity Supplemental Food Program (CFSP), food banks across the 
country would be struggling even more to meet the increased need.
    We recognize the challenge you face drafting a farm bill in a time 
of deficit reduction, but we are also sensitive to the tremendous, 
ongoing need in our state. As such, we have two key priorities for the 
farm bill.
    First, we urge you to strengthen TEFAP to help us keep up with 
increased demand. TEFAP supplies about 25 percent of the food moving 
through Feeding America's national network of food banks. But because 
of strong commodity prices, TEFAP food declined 30 percent last year, 
and our food bank is struggling to make up the difference. We urge you 
to make TEFAP more responsive during times of high need by tying 
increases in mandatory funding to a trigger based on unemployment 
levels. We also propose to enhance the Secretary of Agriculture's 
authority to make TEFAP bonus purchases at times when the need for 
emergency food assistance is high--for example high unemployment--in 
addition to times of weak agriculture markets so that the program can 
respond to both excess supply and excess demand.
    Second, we also strongly urge you to protect SNAP from harmful 
funding cuts or policy proposals that would restrict eligibility or 
reduce benefits. SNAP has responded effectively to growing need in the 
recession with benefits that are timely, targeted, and temporary. The 
average SNAP household has an income of only 57 percent of the Federal 
poverty guideline, and 84 percent of benefits go to households with a 
child, senior, or disabled person. The program is working to support 
vulnerable Long Island families, and our food bank or local agency 
partners would not be able to meet the increased need for food 
assistance if SNAP were cut.
    These programs have a real impact on your constituents, many of 
whom must rely on the food bank and Federal nutrition programs to meet 
their basic food needs. I would encourage you to visit the food banks 
serving your district before the Committee marks up a farm bill so you 
can meet our clients and see firsthand how Federal nutrition programs 
are working to protect vulnerable Americans from hunger.
    Long Island Cares believes that feeding our neighbors is a shared 
responsibility, and food banks like ours rely on a variety of food 
streams to support our communities, including generous support from 
partners in retail, manufacturing, and agriculture. However, the 
Federal government is an equally critical partner through programs like 
TEFAP, SNAP, and CSFP, and with tremendous, ongoing need in our state, 
ongoing Federal support is more important than ever.
    As the House Agriculture Committee moves forward with farm bill 
reauthorization, our food bank urges you to protect the nutrition 
safety net and offers the specific recommendations below.
            Sincerely,

Michael W. Haynes, M.P.A.
                                 ______
                                 
                      Comment of Maryann Haytmanek
    Date Submitted: Wednesday, May 09, 2012, 5:19 p.m.
    City, State: Allentown, PA
    Occupation: Community College Administrator
    Comment: Please recognize the importance of the SNAP program as a 
means for our local community to feed their families and inject much-
needed income into our community. In Pennsylvania, the state government 
has pursued nothing less than a witch hunt to punish people who rely on 
government assistance in any form, including the very-well-run SNAP 
program. The families who receive this assistance rely on this bit of 
help to maintain their energies to go to work to be alert in school and 
to maintain their families.
                                 ______
                                 
                        Comment of James Hayward
    Date Submitted: Wednesday, May 02, 2012, 2:46 p.m.
    City, State: Acton, MA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Because farming, as in sustainable farming--the 
preservation of a system to sustain life of our future generations with 
food and fiber, is so centralized and localized to regional areas, 
national legislation for farming seems irresponsible. The legislation 
should return power to districts and states by allowing them to source 
the majority of their food from around their area. Yes, it is viable to 
buy avocados at the supermarket that were grown in California. But with 
a more regionalized food system the avocados will be less enticing 
because of its higher price. The avocado in this sense is not literal; 
It representative of our transnational food systems and how it's simply 
not a viable option for the future.
    Anyways, this relates to the Farm Bill 2012 because this bill does 
not dive into how many of our nation's farms need to be restructured to 
promote soil fertility and long term stewardship, not solely based on 
price per pound and uniform structure for large scale shipping. Let the 
farmers dictate how they can feed our nation. They are smarter than the 
stigma we put on them. Letting smaller scale co-ops of regionalized 
farmers will let our farmers figure out the best way to feed everyone 
in the region. A beautiful dependency between farmer and consumer will 
arise, based on farmers dependence for consumer's money to sustain and 
reinvest in the farm, and the consumer relying on the farm to feed 
their families healthy food.
                                 ______
                                 
                        Comment of Merle Hayward
    Date Submitted: Friday, May 18, 2012, 8:44 p.m.
    City, State: Hilo, HI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Subsidize transition to organic ag, protect organic 
growers from GMO and chemical contamination, set use limits on RoundUp 
and other toxic ag chemicals, protect bees from toxic chemicals and 
require bee refuges.
                                 ______
                                 
                        Comment of Craigen Healy
    Date Submitted: Sunday, May 20, 2012, 7:48 p.m.
    City, State: New Vineyard, ME
    Occupation: Retired Teacher
    Comment: Please support the whole Ag. Reform Bill do that we can 
have more confidence in the integrity of the food we buy. I have been 
raising as much of my own vegetables as I can for years in my organic 
garden, but All Americans need healthier food, and small farmers need 
equal recognition with industrial farms.
                                 ______
                                 
                       Comment of Elizabeth Healy
    Date Submitted: Wednesday, May 09, 2012, 11:02 p.m.
    City, State: Tucson, AZ
    Occupation: Personal Assistant
    Comment: We need a Farm Food Bill that supports the work the 
nation's Food Banks are doing. Make sure the bill includes lots of 
money for food assistance programs like SNAP. Here in Southern AZ we 
have an increased demand for food assistance. This nation has too many 
hungry people and this bill should be helping them, not hurting them 
more. Have you ever gone to bed hungry? Do you know how many children 
in AZ will do that tonight? We need your help! Thank you.
                                 ______
                                 
                         Comment of Robyn Healy
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: Philadelphia, PA
    Occupation: Disabled
    Comment: We need to take back farming from big Ag and help out the 
little farmers around our great nation. Family owned farms provide a 
great resource for our nation. They provide healthy foods for our 
families and some even provide the experience of ``pick-your-own'' 
produce. Please protect our local growers.
                                 ______
                                 
                    Comment of Peta Hearsey-McComas
    Date Submitted: Thursday, April 05, 2012, 10:35 a.m.
    City, State: Charlottesville, VA
    Occupation: Clinician
    Comment: Families and individuals who are scraping by on minimum 
wage or limited food program will start to starve. You do not want to 
raise taxes but will spend millions on special interest companies. Is 
it not time to take care of the people who are trying to make a life 
and be productive members of our society?
                                 ______
                                 
                         Comment of Jewel Heart
    Date Submitted: Friday, May 18, 2012, 4:34 p.m.
    City, State: Cornville, AZ
    Occupation: Volunteer
    Comment: If humanity is going to survive through all the toxins 
that have been spewed across the planet, we need real organic food to 
live so that we can clean up the planet for future generations of 
people and animals and plants.
                                 ______
                                 
                       Comment of Susan Heathcote
    Date Submitted: Tuesday, May 15, 2012, 5:37 p.m.
    City, State: Des Moines, IA
    Occupation: Water Program Director for Iowa Environmental Council
    Comment: I urge the House Agriculture Committee to restore the link 
between conservation compliance and eligibility for taxpayer-supported 
subsidies for crop and revenue insurance. This link between compliance 
and crop insurance is especially important as Congress considers 
elimination of direct payments, the major subsidy program that is 
currently linked to compliance. I am not a farmer, but I pay taxes to 
help support a safety net for farmers. All that I ask in return is that 
subsidized farmers will follow basic conservation practices on their 
fields to prevent soil erosion and preserve wetlands that will help 
protect water quality downstream from the farm. This conservation 
compliance compact between farmers and the public has worked for 30 
years, but if crop insurance and compliance are not linked, a 
significant part of a farmer's incentive to follow conservation plans 
will disappear this year. Please don't let that happen.
                                 ______
                                 
                        Comment of Kristi Heaton
    Date Submitted: Friday, May 18, 2012, 1:20 p.m.
    City, State: East Windsor, CT
    Occupation: Homemaker
    Comment: I want the corporations to stop dictating the way I feed 
my family. Please support and promote organic farms and food labeling. 
I do not want to feed my family GMO foods. Care more about us than you 
do Monsanto and do the right thing.
                                 ______
                                 
                        Comment of Sylvia Hebel
    Date Submitted: Friday, May 18, 2012, 9:51 p.m.
    City, State: Rice Lake, WI
    Occupation: College Student, Homemaker
    Comment: There are three things people need to live, clean air, 
clean water, and a place to grow their food. The factory turkey and 
heifer farms I have seen have got me eating less beef and no turkey. 
Commercial farmers care about their animals insofar as they are good 
for sale. The lack of pasture, and the crowded sheds say it all.
    Date Submitted: Friday, May 18, 2012 9:53 p.m.
    Comment: I will continue to vote with my money. I have little and 
will spend less for factory farmed food. I grow a garden and buy 
locally if possible.
                                 ______
                                 
                       Comment of Lyn Hebenstreit
    Date Submitted: Friday, May 18, 2012, 1:33 p.m.
    City, State: Ojai, CA
    Occupation: Retired
    Comment: Is it not obvious that people and the Earth should take 
priority over the profits of giant agribusiness corporation profits 
when it comes to legislating how our food is produced? Small scale 
organic agriculture has been shown to be the most productive, healthy 
and sustainable way to produce food by the most comprehensive 
agricultural study ever completed under the auspices of the UN. I 
suggest you use that as a guide.
                                 ______
                                 
                        Comment of Susan Heckel
    Date Submitted: Friday, May 18, 2012 1:24 p.m.
    City, State: Naples FL
    Occupation: Retired Homemaker
    Comment: Please Do The Right Thing.
    Fight big agribusiness and End Factory Farming. For the sake of our 
children and grandchildren. Sick animal carcasses are what is 
contributing to childhood and all kinds of obesity and illness.
                                 ______
                                 
                        Comment of Laura Hedlund
    Date Submitted: Saturday, May 19, 2012, 6:52 p.m.
    City, State: Eagan, MN
    Occupation: Sales
    Comment: America needs the type of farm bill President Jefferson 
would have supported. We need to support environmentally responsible 
farmers. I support the principles of Slow Food.
                                 ______
                                 
                       Comment of Dwayne Hedstrom
    Date Submitted: Saturday, May 19, 2012, 7:54 p.m.
    City, State: Portland, OR
    Occupation: Unemployed
    Comment: No more welfare for the big ag corps. Small family farms 
that sell where they produce need and can be the backbone of food 
secure and economically secure communities.
                                 ______
                                 
                         Comment of Wynnie Hee
    Date Submitted: Friday, May 18, 2012, 7:03 p.m.
    City, State: Mililani, HI
    Occupation: Retired Teacher
    Comment: Please subsidize organic farmers or at least make it 
cheaper for them to be certified. Please do not subsidize GMO corn and 
GMO soy. There so much corn that we don't know what to do with it--
except feet it to cattle that are healthier on a grass diet or make 
biofuel. Subsidize good food for people, not expensive fuel. Thank you 
for listening.
                                 ______
                                 
                         Comment of Jeff Heehs
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Brooklyn, NY
    Occupation: Corporate Sales Account Manager
    Comment: I urge Congress to support a Food and Farm bill that:

  <bullet> prevents the near-monopoly concentration of food production 
        and distribution in a small number of private companies.

  <bullet> focuses on increasing the production and distribution of 
        healthy foods--including fruits, vegetables, and whole grains--
        for consumption in our communities, homes, schools, and 
        institutions.

  <bullet> Ends food insecurity and hunger by protecting our nation's 
        nutrition programs and ensuring equitable access to healthful, 
        sustainably produced food.

  <bullet> mandates labeling of food according to country of origin and 
        food that includes ingredients from genetically modified 
        organisms.

  <bullet> supports agricultural practices to preserve our vital 
        agricultural soil and water resources, reduce farm and other 
        food-system energy consumption, and practice sustainable 
        agricultural production methods that minimize air and water 
        pollution.

  <bullet> supports innovative methods to strengthen our regional food 
        systems as a means to regain economic vitality.

  <bullet> provides entrepreneurial opportunities and fosters business 
        growth and job creation in rural and urban production, 
        processing, and distribution.

  <bullet> supports beginning and disadvantaged urban and rural 
        farmers, as well as established farmers facing the challenges 
        of feeding America.

    In this Food and Farm Bill I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> Full, mandatory funding to community food project grants.
                                 ______
                                 
                       Comment of Jamie Heeringa
    Date Submitted: Friday, May 18, 2012, 11:35 a.m.
    City, State: Grand Rapids, MI
    Occupation: Costume Designer and Educator
    Comment: I am shocked and frustrated that my government has allowed 
and promoted the corruption and poisoning of our food system by big 
agribusiness through the use of toxic pesticides and fungicides and 
GMOs. This is capitalism run amuck. It's time for you to get at the 
truth by questioning the lies told by those whose goal is only profit, 
and to read the independent research. Our children, future generations, 
and our environment (which is connected to our health) are all being 
poisoned for greed. It is immoral. Why does most of our financial help 
go to the least nutritious and most damaging industrial crops rather 
than to those we know to be the best for our health . . . fruits and 
vegetables? We know the answer . . . money and power of the big 
companies. Our health care costs will continue to sky rocket out of 
control until we stop poisoning our bodies and the environment and 
figure out how to get these toxins out. Common sense tells us that 
organic is the best. Poison is poison, and that's what we get with our 
current system. Research shows it can be done . . . we just have to 
place our health and the health of the planet above profit. Who is 
willing to do that? Are you? Or will you be one of those that have been 
elected by the people, but serves big business? Our innocent children, 
now and in future generations, need your help and protection. Please 
have the courage to stand up and do the right thing for us.
                                 ______
                                 
                       Comment of Kelsey Heeringa
    Date Submitted: Saturday, May 19, 2012, 1:31 a.m.
    City, State: Rockford, MI
    Occupation: Writer
    Comment: The farm bill no longer makes sense in the world we live 
in. It is not supporting healthy farming practices for the land or the 
people. To move forward this country Has to have support for organic 
practices, new farmers that want to farm organically to local markets, 
and conservation programs. If you take a step back and think about the 
direction the country MUST move it, before we destroy it and our 
health. The farm bill is the most important piece of legislation in the 
government, in my voting opinion, and would like my representative to 
represent me and my family.
                                 ______
                                 
                      Comment of Reed Heffelfinger
    Date Submitted: Friday, May 18, 2012, 12:59 p.m.
    City, State: Minneapolis, MN
    Occupation: Health Care, Western Herbalist, Minister, Counselor, 
Artist, Single Mother, Grandmother
    Comment: I grew up in a Minnesota Milling Family--`Peavey Company'.
    I spent 4 years as a founder of a certified organic food company 
that was meat based. I care how animals are treated in this country. I 
have observed over and over again that they do not know what it is to 
be in nature--their natural habitat. Large corporate farms know that if 
a baby chick does not go outside in their first week or so--they will 
not. Therefore, this huge organic producers can put a small fenced in 
area (mostly dead soil, no grasses or bugs) and call them cage free/
free range--jeez. They are not healthy. They are fed unhealthy food. 
Often GMO corn. Therefore we are not eating healthy food.
    I know the toxins/chemicals released in animals on that 'Long Good 
Bye' Death walk to slaughter.
    I know what the communities stink like where animals are 
slaughtered--how tightly they are packed in corrals.
    I know that we have depleted the soil. I know that money talks. I 
know that we are the least BioDynamically farmed country in the world . 
. . check it out. I know that other countries use Flow Forms to create 
living pristine water . . . even from hog sludge. I know that we are 
laughed at regarding our `water purification' attempts--all hidden 
within buildings. There is so much information regarding living water--
i.e., Flow Forms by John Wilkes for a start.
    When we can get over ourselves and the quest for money and more 
money and power perhaps there would be space for wisdom. Perhaps, some 
of you could move on over and bring in some fresh insights/wisdom. 
There is enough for everyone.
    Thank you for your time.

Reed Heffelfinger.
                                 ______
                                 
                          Comment of Mary Heft
    Date Submitted: Saturday, May 19, 2012, 4:58 p.m.
    City, State: Kansas City, MO
    Occupation: Registered Nurse
    Comment: President Truman said, ``nothing is more important in our 
national life than the welfare of our children, and proper nourishment 
comes first in attaining this welfare.'' For the first time in our 
national history our children have a lower life expectancy than we do 
because of what they eat.
    Every leading cause of disability and death in the U.S.; obesity, 
diabetes, heart disease, stroke and cancer is correlated to poor 
nutrition. According to a USDA report in 2011 there is not even enough 
vegetables, fruits and grains in the American food supply to even meet 
dietary requirements for all citizens. Our citizens lack both physical 
and monetary access to safe, fresh, nutritious foods, and yet all 
physiological, biochemical, and immunological systems in the body are 
changed in the malnourished individual. Correcting our diets can 
decrease health care costs.
    The mandate to increase ethanol production is devastating our food 
supply. Less and less edible produce is being grown due to the 
subsidies given for corn production.
    The sugars in our processed foods have been repeatedly shown to 
cause disease and genetically modified crops are proving to do the 
same. Why are we one of the only industrialized nations to allow GMO's 
to flood our food environment without even basic labeling requirements?
    Mission Readiness, the group of retired military generals, say that 
the leading medical disqualifier for military service is obesity--a 
diet related condition.
    We MUST put our health before the powerful interests of 
agribusiness giants. We are dying and we are killing our children with 
our food.
    Being free from hunger is not synonymous with being nourished.
    Please subsidize fresh, nutritious foods. Require labeling for 
types of sugars and GMO ingredients.
    Our country's food system is in crisis! It is only when all 
citizens, at all times, have physical and economic access to 
sufficient, safe, and nutritious food that our country can be healthy 
and our children's future secure.
                                 ______
                                 
                        Comment of Gena Hegelman
    Date Submitted: Friday, May 18, 2012, 7:37 p.m.
    City, State: Nesses, SC
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: We need the business of growing food to return to being 
about just that, not about chemicals, genetic modifications, etc. We 
need to support healthy foods, organic such as we grow here. Too much 
of our land is covered in corn and soybeans that is not even used to 
feed people. Subsidies, if necessary should be for the real food crops. 
Nutrition is the true way of the future of our civilization. Right now 
we are killing ourselves and the government is paying for the poison.
                                 ______
                                 
                       Comment of George Hegeman
    Date Submitted: Friday, May 18, 2012, 10:56 p.m.
    City, State: Bloomington, IN
    Producer/Non-producer: Producer
    Type: Forestry, Fruits, Livestock
    Size: 50-150 acres
    Comment: Halt the corn ethanol subsidy and keep the SNAP program! 
SNAP is an important part of the safety net and further shredding of 
this net in these times would be awful.
                                 ______
                                 
                       Comment of Susan Heggestad
    Date Submitted: Friday, May 18, 2012, 3:44 p.m.
    City, State: Vermillion, SD
    Occupation: Teacher
    Comment: Please give stronger consideration to practices that 
benefit the health of all, strengthen small communities, and contribute 
to sustainable practices in agriculture. It is time for communities and 
families to take priority over the financial gains of large ag 
companies.
                                 ______
                                 
                         Comment of Jeff Heidt
    Date Submitted: Friday, May 18, 2012, 9:21 p.m.
    City, State: Sedona, AZ
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Is it true that:

  <bullet> Agribusiness has a stranglehold on our regulatory system and 
        our political leaders?

  <bullet> The Senate Agricultural Committee has already voted to cut 
        $4 million from organic research funding and cut funding to 
        support Beginning Farmers in half?

  <bullet> The Senate Ag Committee has voted to get rid of wasteful 
        subsidy payments, and has proposed to replace it with a new 
        subsidized insurance program that leading sustainable 
        agriculture advocates are calling rife with opportunities for 
        fraud and abuse?

  <bullet> While Congress is looking to get rid of direct payments to 
        commodity farmers, the subsidized insurance program it proposes 
        to replace it with will allow giant commodity farmers and 
        insurance companies to walk away with billions in taxpayer 
        dollars while putting the land, soil and environment at greater 
        risk?

    U.S. food and agricultural policy must focus on adopting best 
agricultural practices that put the health of its citizens, the land 
and the livelihood of farmers and farm workers over the interests of 
industrial agriculture lobbyists.
    Thank you for your consideration of this important matter!

Jeff Heidt,
Sedona, AZ.
                                 ______
                                 
                         Comment of Doris Heil
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: San Clemente, CA
    Occupation: Office Worker
    Comment: Yes I am in favor of Any kind of farms that have been 
taken away from America's farmlands. Being Organic or Not organic makes 
not much difference to me.
    Just why are foreign countries allowed to be producing the food and 
products that America should be enabling And, Please Tell Me Why Ken 
Calvert Does Not Answer Any Of My Questions. I Think Perhaps, That He 
And Others Have Been In Office Much Too Long.
    Americans to produce and earn a living from?
                                 ______
                                 
                        Comment of Kari Heimdal
    Date Submitted: Friday, May 18, 2012, 10:24 a.m.
    City, State: Milford, IA
    Occupation: Church Outreach Coordinator
    Comment: As a hobby farmer on 3 acres near Milford and potential 
future small/niche farmer I feel the subsidy system is broken * and 
eliminating conservation compliance from insurance subsidy ties would 
be a huge mistake and step backward for our state and All farmers. 
Please consider the long term need for conservation which will continue 
to keep Iowa economically stable into the far future.
---------------------------------------------------------------------------
    * When I say it is broken, I am referring to the limited crops 
which are available for subsidy assistance.
---------------------------------------------------------------------------
    These policies only serve to proliferate the monoculture mentality 
and deter diversity within farming. Inclusion of niche/small farm 
security measures within the system would certainly encourage more 
small farmers to pursue their Iowa Small Farm Dream! Please consider 
the Whole of Iowa as you deal with the farm bill, not just our military 
industrial machine of corn, beans, pigs & cows!
    My vote hangs in the balance, Rep. King!
            Sincerely,

Kari Heimdal.
                                 ______
                                 
                       Comment of Malley Heinlein
    Date Submitted: Friday, May 18, 2012, 11:56 a.m.
    City, State: Kingston, NY
    Occupation: Homemaker
    Comment: Support Beginning Farmers! Continue and develop Organic 
Farming Research! Stop the rampant subsidizing of Factory Farms and 
make smaller farms who pay attention to quality control Sustainable! 
Farming should not be the work of large Corporations!
                                 ______
                                 
                        Comment of Donna Heinlin
    Date Submitted: Friday, May 18, 2012, 8:58 p.m.
    City, State: Evansville, IN
    Occupation: Retired
    Comment: We should have a right to know what we are eating? We want 
certified organic farming to get the subsidies? Stop GMO foods. At the 
very least label . . . them. So we can make our own decisions.
                                 ______
                                 
                       Comment of Rosalie Heiwns
    Date Submitted: Friday, May 18, 2012, 7:59 p.m.
    City, State: Morrison, CO
    Occupation: Retired
    Comment: I believe in the right to have clean food without 
pesticides and non GMO modified. I believe that the toxins in our food 
chain are the cause of disease and cancer in this country. I believe 
our government should be protecting us from these harmful ingredients 
instead of protecting the very companies, such as Monsanto, who are 
producing foods that are bad for us, and not only that, but receiving 
huge subsidies. Now tell me why does a multibillion dollar company need 
farm subsidies. The only people who need subsidies are the small 
farmers and those starting up and growing organic produce. These are 
the people we need to support, not the multimillion dollar farm. It has 
been reported that many people in Congress, who happen to own farms, 
are receiving subsidies. This is absolutely wrong. Again, this is just 
another way that the good old boys club of Congress rewards itself. A 
subsidy is to support farmers who need the money to continue doing what 
they do and hopefully to encourage healthy and organic farms to start 
up and continue. Please do the right thing by awarding subsidies to the 
people who need it and not as bribes for votes.
                                 ______
                                 
                         Comment of Laura Held
    Date Submitted: Friday, May 11, 2012, 11:21 a.m.
    City, State: Somerville, MA
    Occupation: Graduate Student in Agriculture, Food, and Environment
    Comment: We need a farm bill that supports low-income Americans, 
both producers and consumers. We need to support farms that practice 
sustainable agriculture and that are small to medium in size. We need 
to restrict abuses to animals in agriculture, particularly CAFOs.
                                 ______
                                 
                        Comment of Lynette Helle
    Date Submitted: Friday, May 18, 2012, 4:39 p.m.
    City, State: Redding, CA
    Occupation: Homemaker
    Comment: Please support better Farming. We desire to eat food, that 
is pure. Not GMO. We are tired of eating food, that makes us sick. We 
would like to support good old fashion farming. We Would Like To See 
Organic Farming As A True Choice For The American People. 
                                 ______
                                 
                       Comment of Gigi Helliwell
    Date Submitted: Friday, April 27, 2012, 11:44 p.m.
    City, State: Buffalo, NY
    Occupation: Teacher
    Comment: Save the family farm. Stop GMO's. Stop corporate takeover 
of farms; stop the chemical pollution of our land with pesticides and 
stop bad farming practices like rampant monocultures of crops where 
even bees can't survive. Stop this nonsense and work to make our food 
safe, tasty and nutrient-rich the way nature is designed--not the way 
Monsanto and all that multi-billion dollar agribusiness want it to go!
                                 ______
                                 
                         Comment of Hannah Helm
    Date Submitted: Friday, May 18, 2012, 10:21 a.m.
    City, State: Frankfort, KY
    Occupation: Retired
    Comment: I am concerned that the 2012 Farm Bill will not have 
provisions linking crop insurance subsidies to compliance with 
Conservation Plans. I want to ensure farmer's entitled to payments with 
my tax dollars be required to follow sustainable agriculture practices. 
Thank you.
                                 ______
                                 
                       Comment of Gayle Hemenway
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Fort Collins, CO
    Occupation: Homemaker
    Comment: It is high time we had a farm bill that did more than just 
continue subsidies to huge producers and alter in negative ways the 
competitive landscape for food production. Please support the kinds of 
farmers and ranchers and food production that those of us who cook, 
eat, and feed our families want to support: small farms, organic and 
biodynamic farms, local and regional farms that feed their communities 
with a harvest of variety. Thank you.
                                 ______
                                 
                       Comment of Daniel Hemesath
    Date Submitted: Saturday, May 19, 2012, 12:58 a.m.
    City, State: Clovis, CA
    Occupation: Photographer
    Comment: Organic farming is vitally important. It is our only hope 
of solving the biggest problems facing the country. The playing field 
should be leveled. Organic farming should be given equal incentives. 
Otherwise big food conglomerates will continue to dominate and our 
health and the environment will pay the price.
                                 ______
                                 
                        Comment of Phil Hemesath
    Date Submitted: Friday, May 18, 2012, 11:02 p.m.
    City, State: Decorah, IA
    Occupation: Retired Dairy Farmer
    Comment: Do away with direct payments. Connect conservation 
payments and incentives on outcome based criteria. Producers should 
develop a conservation plan that best fits their own farm. Phase out 
support prices. Keep crop insurance affordable.
                                 ______
                                 
                     Comment of Carmen Hendershott
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: New York, NY
    Occupation: Librarian
    Comment: We need a farm bill that supports organic farming and 
small family farms; that stops subsidizing large agribusinesses, such 
as Monsanto, thereby wasting taxpayer monies; that works against 
genetically modified food, indiscriminate and excessive use of 
pesticides; and that encourages local buying, which would reduce 
transportation costs. Please remember this when you are drafting the 
farm bill.
                                 ______
                                 
                       Comment of Ella Henderson
    Date Submitted: Thursday, May 17, 2012, 3:04 p.m.
    City, State: Gallion, AL
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Vegetables
    Size: Less than 50 acres
    Comment: I'm looking for a bill that will assist the 10 acre or 
less farmer. The farmers who really feed the communities. Invest in 
sustaining heirloom seeds. Foster innovation for future farmers and 
non-GMO food entrepreneurs.
                                 ______
                                 
                      Comment of Heather Henderson
    Date Submitted: Tuesday, May 15, 2012, 4:44 p.m.
    City, State: Tallahassee, FL
    Occupation: Student
    Comment: I am a student at Florida State University studying Food 
and Nutrition Science. I am the president of a group called the 
Tallahassee Sustainability group, we have a community farm and a 
greenhouse at a second chance middle school. I would like for the farm 
bill to include community farms like ours. Promoting nutrition to the 
community through producing food is a wonderful tool. Grants are 
available but if there were more we could do more. We are currently 
attempting to incorporate a community kitchen at the farm and are 
having difficulty finding funding. More grants for projects such as 
this one would be greatly appreciated.
                                 ______
                                 
                      Comment of Janice Henderson
    Date Submitted: Friday, May 18, 2012, 5:28 p.m.
    City, State: Medford, OR
    Occupation: Retired from Self-Employment
    Comment: It is critical that you do not cut funding to programs 
such as nutrition, conservation and support for organic agriculture. 
Organic farmers are vital to the sustainability of a Healthy food 
supply industry, sustainability of the land, and vital to sustaining 
public health which ultimately will lower healthcare cost. Please do 
the Right thing. Support the Organic Farm Industry. Our future depends 
on it.
                                 ______
                                 
                     Comment of Jeanette Henderson
    Date Submitted: Sunday, May 20, 2012, 9:59 a.m.
    City, State: Seattle, WA
    Occupation: University Employee
    Comment: U.S. food and agricultural policy should preference public 
health, including local food produced by small farmers. It should focus 
on adopting best agricultural practices that put the health of its 
citizens, the land and the livelihood of farmers and farm workers over 
the interests of industrial agriculture.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of John Henderson
    Date Submitted: Friday, May 18, 2012, 6:16 p.m.
    City, State: Chattanooga, TN
    Occupation: Waiter/Food Activist
    Comment: I believe in you, our legislators. And I believe in your 
commitment to the voice of the people, and your oath to pass laws that 
benefit the greater good. The farm bill should benefit the people, not 
corporate interests and agribusiness giants. Please uphold the sanctity 
of the Constitution and develop a bill that fully endorses all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286). Provide 
full funding of conservation programs, such as the Conservation 
Stewardship Program, and make sure that enrollment in any new insurance 
subsidies are tied directly to compliance with conservation programs. I 
would like to see the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), and please maintain the 
EQIP Organic Initiative. These are very important issues that will 
affect future generations, long after we are all gone. Let's move 
toward doing the right things for our world, not just for us, but for 
the benefit of our posterity. Thank you.
                                 ______
                                 
                       Comment of Nancy Henderson
    Date Submitted: Friday, May 18, 2012, 9:52 a.m.
    City, State: Lincoln, MA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: It is critical that we wrest control of our food system 
from corrupt giant agribusinesses and allow farmers to grow food that 
is safe to eat and safe for the environment. Real inspections by 
independent (Government i.e., FDA) inspectors and use every available 
means to educate the public as to where their food comes from and how 
they can become partners in making healthier choices that benefit good 
farming practice and the environment.
                                 ______
                                 
                       Comment of Paige Henderson
    Date Submitted: Friday, May 18, 2012, 12:11 p.m.
    City, State: Grapevine, TX
    Occupation: Sales Representative
    Comment: Our nation is out of control. It is time to get back to 
the basics of agriculture and get big business out. I am tired of the 
``science'' of pesticides which is killing people. Please get a clue.
                                 ______
                                 
                      Comment of Sherry Henderson
    Date Submitted: Friday, May 18, 2012, 10:12 p.m.
    City, State: Alpharetta, GA
    Occupation: Magazine Publisher
    Comment: The farm bill must support small farmers and abolish 
ridiculous rules against raw milk, free range poultry and eggs and 
other very healthy farm products.
    We must stop the filthy factory farming practices that are 
poisoning our environment and bringing misery to livestock.
                                 ______
                                 
                       Comment of Kate Hendricks
    Date Submitted: Friday, May 18, 2012, 10:23 a.m.
    City, State: Healdsburg, CA
    Occupation: Farm Gleaner
    Comment: Food production is connected to the health of our 
environment. Our current food system accounts for about 20 percent of 
our national energy consumption and relies heavily on chemical, fossil 
fuel, and water inputs. Unchecked, such practices can degrade our 
natural resources, erode our soil, and pollute our air and water. The 
next farm bill can help reverse these detrimental effects--the time to 
act is now!
                                 ______
                                 
                        Comment of Jean Hendrix
    Date Submitted: Sunday, May 20, 2012, 3:45 a.m.
    City, State: Kamuela, HI
    Occupation: Retired Sales Manager
    Comment: Please save our family farms and our food. Protect us like 
you said you would when we elected you. We need safe Non-GMO food and 
we want labels on foods that contain any GMOs in any of the 
ingredients. We have the right to unmolested food, and the right to 
know when it has been played with.
                                 ______
                                 
                        Comment of Linda Hendrix
    Date Submitted: Saturday, May 19, 2012, 1:25 p.m.
    City, State: Bend, OR
    Occupation: Therapist
    Comment: We deserve better than what we are getting all around from 
our government and the corporations that are using us as guinea pigs in 
their quest for record profits.
                                 ______
                                 
                       Comment of James Henriksen
    Date Submitted: Friday, May 18, 2012, 8:04 p.m.
    City, State: Green Valley, AZ
    Occupation: Retired
    Comment: All farm subsidies should be implemented for the growing 
of crops, not for non-planting. Also, more attention should be given 
for crops that can be used for biofuel.
                                 ______
                                 
                      Comment of Michelle Hensley
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Minneapolis, MN
    Occupation: Theater Director
    Comment: We barely live in a democracy any more. Corporate 
interests control our food supply and are ruining our health, our 
children's health and our planet's health! Please Show Some Courage And 
Stand Up For The People--For The Children--and stop pandering to 
wealthy corporations who are destroying us all!
                                 ______
                                 
                        Comment of Karen Henson
    Date Submitted: Saturday, May 19, 2012, 10:44 a.m.
    City, State: Longmont, CO
    Occupation: Elementary School Teacher and Landscaping Business 
Owner
    Comment: Farmers are the ultimate entrepreneurs. Please continue to 
support these brave business people who are risking so much to serve us 
by growing beautiful organic food. Let's continue to encourage new 
farmers who want to feed us whole food without using insecticides. 
These people work Hard!
                                 ______
                                 
                        Comment of April Hepner
    Date Submitted: Saturday, May 19, 2012, 10:36 a.m.
    City, State: Denver, CO
    Occupation: Social Work
    Comment: I would like to see an administration that puts the health 
of the people & the environment first. This would happen through 
allowing native crops to be grown, supporting crop rotation & land 
conservation, and the humane treatment of agriculture. I will continue 
to support local organic, grass-fed, and free range/pastured food. 
Please consider the demand for this in reviewing the future of the farm 
bill.
                                 ______
                                 
                       Comment of Joseph Herbert
    Date Submitted: Saturday, May 19, 2012, 5:29 p.m.
    City, State: Portland, OR
    Occupation: IT Desktop Engineer, for a Steel Manufacturing 
Corporation
    Comment: As a civic-minded citizen--and voter--I hereby urge you to 
carry out ``in the strongest language possible'':

    (1) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any 
        ``new insurance subsidies'' are tied directly to ``compliance 
        with conservation programs.''

    (2) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (3) Maintaining the EQIP Organic Initiative.

    (4) The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    The goal of Ag must be to contribute to the health of all U.S. 
citizens, and to do so in an economically and socially sustainable 
manner.
    In the past 60 years, the Dept of Ag has instead focused on: 
``Producing as much food as cheaply as possible'' . . . which is direct 
opposition to the above-stated goals.
                                 ______
                                 
                         Comment of Nicole Herd
    Date Submitted: Friday, May 18, 2012, 11:04 a.m.
    City, State: Sunbury, OH
    Occupation: Marketing
    Comment: Please support local, organic farming and food stamps 
being accepted for healthy fruits and vegetables at farmers' markets. 
We need a healthier Ohio!
                                 ______
                                 
                      Comment of Cynthia Hernandez
    Date Submitted: Friday, May 18, 2012, 1:31 p.m.
    City, State: Ukiah, CA
    Occupation: Therapist
    Comment: The American people desire and deserve to know what is in 
their food. We want safe food and the ability to make an inform choice 
in what we are eating.
                                 ______
                                 
                     Comment of GlendaRae Hernandez
    Date Submitted: Saturday, May 19, 2012, 12:33 a.m.
    City, State: South Bend, IN
    Occupation: Retired
    Comment: Common decency as well as my Christian faith insists that 
the hungry among us cannot be overlooked. There is plenty in the 
military budget that can be cut without snatching the food out of the 
mouths of the hungry.
                                 ______
                                 
                        Comment of Joe Hernandez
    Date Submitted: Sunday, May 20, 2012, 11:04 p.m.
    City, State: Saugerties, NY
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I'd like to share my 
support for programs that help the next generation of growers build 
strong farm businesses. As it's estimated that 125,000 farmers will 
retire in the next 5 years, it's absolutely critical that farm bill 
programs help citizens get started in this challenging field. I ask 
that the Committee endorse all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
    Why only one young farmer was invited to be a member of the panel 
is an indication that the questions and problems as they relate to the 
Future of agriculture and farming are not to be addressed. In the same 
way not One Woman was on the panel that discussed Women's health 
issues, this again shows that Congress has not learned anything about 
talking with the people. To many of you talk At the people and turn to 
your money handlers for direction and advise. After the Money tells you 
what to think then you act. Money may be in short supply but there is 
always millions for the millionaire farmers. When these are dead and 
gone how will you feed those that are left?
            Sincerely,

Joseph A. Hernandez,
[Redacted],
Saugerties, NY.
                                 ______
                                 
                    Comment of Michelle D. Hernandez
    Date Submitted: Wednesday, May 02, 2012, 4:57 p.m.
    City, State: New York, NY
    Occupation: College Student
    Comment: As a concerned citizen, I write in support of increasing 
access of SNAP participants to farmers markets, in effort to provide 
those of lower income to fresh available foods. Coming from a city with 
many who fall under low income households but with many farmers 
markets, I feel that is unjust for a such large population to not have 
the chance to make more healthier choices, especially in a epoch of 
obesity and chronic diseases which tends to impact those of working 
class the most. With access to fresh produce at the farmer's markets, 
we can help tackle the negative health effects that can come from 
picking unhealthy products at the supermarkets as well as support a 
growing sector in our agricultural system which therefore supports 
small farmers and our local economy. Thank you for your time and 
consideration as you all go on to creating a better future for America.
                                 ______
                                 
                         Comment of Ann Hernday
    Date Submitted: Tuesday, May 15, 2012, 2:00 p.m.
    City, State: Santa Rosa, CA
    Occupation: Retired, Homemaker, Caregiver, Long Time Gardener
    Comment: Dear Chairman Lucas,

    I wish to express my agreement with the testimony of author Vicki 
Robin. A basis of our life depends on our healthy, life nurturing 
soils/environment and farmers who know how to support those healthy, 
life nurturing interactions. What could be more important.
    Thank you for this opportunity.

Ann Hernday.
                                 ______
                                 
                         Comment of Irmine Hero
    Date Submitted: Friday, May 18, 2012, 12:27 p.m.
    City, State: Glen Ridge, NJ
    Occupation: Mother of 4 and Small Green Business Owner
    Comment: As a mother I want my kids to be safe when they eat or 
drink and have the right to chose products I know. Lately getting 
organic produce and ultimately non GMO products has been extremely 
difficult and next to impossible . . . tell me which cereal comes from 
a non GMO products? you can't and that is the saddest thing on Earth. 
Stop that and give consumer the right to know and the right to be able 
to choose by helping organic farmers to grow good food and helping them 
by not sponsoring corn and Monsanto.
                                 ______
                                 
                       Comment of Annique Herold
    Date Submitted: Friday, May 18, 2012, 1:25 p.m.
    City, State: New York, NY
    Occupation: SI Practitioner
    Comment:

    1. Redefine humane treatment to truly mean humane.

    2. True humane treatment for all farm animals.

    3. Strong labeling defining GMO versus non-GMO.

    4. More sewer treatment for all animal waste on large farms.

    5. Support/subsidize smallest farms.

    6. End large farm subsidies.

    7. Change definition of Organic so it somehow doesn't exclude 
        smallest farms.
                                 ______
                                 
                          Comment of John Herr
    Date Submitted: Friday, May 18, 2012, 2:49 p.m.
    City, State: Everett, PA
    Occupation: Retired
    Comment: Given the general health of the U.S. population, primarily 
obesity and diabetes the current farm bill only exacerbates this 
situation by payment to support the corporate agriculture of sugar, 
corn (high fructose corn syrup)and soy most of which is GMO modified. 
All this finds its way into the food supply. There is little or no 
support of small farms with diversification and could be organic. The 
small dairy farmer which could sell raw milk, is being besieged by 
state and Federal agencies and is being prevented from selling raw milk 
across state lines. For the sake and security of our nation the sale of 
locally produced produce and non-CAFO meat and milk should be 
encouraged instead of legislation that favors the large corporate 
operations. Less and less of our produce is coming from the U.S. and is 
now imported. What happens when that supply is interrupted? By 
encouraging farmers, especially corporate farmers to grow the very 
foods that are having an adverse effect upon the health of the nation. 
This increases the cost of health care. Deep subsidy cuts would benefit 
not only the budget but the health of the nation.
                                 ______
                                 
     Joint Comment of Nancy Herrick, P.A. and Roger Morrison, M.D.
    Date Submitted: Saturday, May 19, 2012, 3:55 p.m.
    City, State: Nevada City, CA
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: We support local foods and farms act (HR 3286).
    We support fully funding conservation programs.
    We support Beginning farmer and rancher Act (HR3236).
    We support maintaining EQIP Organic Initiative.
            Sincerely,

Nancy Herrick, P.A.;
Roger Morrison, M.D.
                                 ______
                                 
                         Comment of Amy Herron
    Date Submitted: Sunday, May 20, 2012, 1:40 p.m.
    City, State: Virginia Beach, VA
    Occupation: Student
    Comment: Please do more to support family farms and growers of 
fruits and vegetables. Help produce ``food'' not commodities! The 
health of the nation depends on good quality food.
                                 ______
                                 
                        Comment of Andria Herron
    Date Submitted: Saturday, May 12, 2012, 2:06 a.m.
    City, State: Bremerton, WA
    Occupation: Student
    Comment: I am a former Food & Beverage industry person who has been 
forced to change my profession in these hard economic times. I have 
returned to college to get my degree in Nutrition & Dietetics. It is 
more than obvious that the Big Agriculture has poisoned our land, 
waters and our food. Organic is the only option to restore our health 
and the health of our Earth.
                                 ______
                                 
                        Comment of Pamela Herron
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: El Paso, TX
    Occupation: Educator and Writer
    Comment: Our food is essential to our success as a nation. I was 
raised on a farm and am very selective about what I eat. I believe in 
supporting the small farmers, especially those who are attempting to 
incorporate organic or sustainable farming methods. The gov't. has to 
stop their continued support of huge agribusinesses and throw their 
support behind the local, family-run farms.
                                 ______
                                 
                      Comment of Barbara J. Hertz
    Date Submitted: Friday, May 18, 2012, 4:01 p.m.
    City, State: Towaco, NJ
    Producer/Non-producer: Producer
    Type: Fruits, Vegetables, Other
    Size: Less than 50 acres
    Comment: The farm subsidy supporting GMO (Genetically Mutilated 
organisms (misnomer ``modified'') should be eliminated. The subsidy 
represents a violation of the U.S. constitution, separation of Church 
from affairs of State: the ``belief'' that GMO ingredients in our food 
supply and also in animal feed is safe, is a belief system that is 
challenged by a wide following of credible scientists from all over the 
world. In fact, there is no similar following of independent science 
contending that these are either similar in nutritional value or 
metabolized as the `natural' (non-mutilated) foods. Therefore, it is 
established that `GMO' is a false religion.
    In all areas and subjects where differing beliefs may be supported 
the topic under dispute is a belief and therefore, the U.S. 
constitution forbids select support. For this reason alone, the U.S. 
government and the elected officials responsible for its consideration 
must abstain from proving support of the `false' faith--as a misguided 
belief that GMO ingredients could be tolerated since they are not safe, 
in any amount and not safe to include in animals feed (whether the 
flesh or the products of animals are used as food) or human directly in 
a healthy diet.
    The fact that pesticide (GMO corn is registered as a pesticide by 
the DEP) is found in the blood of a consumer (including a pregnant 
woman) and also found in the fetal core blood (therefore, also in the 
unborn child) is sufficiently alarming to prompt swift recall and 
regulation of all GMO ingredients, until there is sufficient testing to 
conclusively establish the hazards. There is no doubt that allergies 
are increased in persons who consume GMO ingredients as well as the 
offspring of pregnant mother's--pesticide crossing the placental 
barrier and infecting the unborn (passive consumer) of pesticide.
    I strongly recommend that the Members of the House Committee on 
Agriculture seriously consider revoking the carte blanch approvals and 
certainly revoke any farm subsidy supporting the hazards posed by 
GMO's. These facts are established and recognized by the international 
community of environmental medicine physicians.
                                 ______
                                 
                          Comment of Don Hess
    Date Submitted: Friday, May 18, 2012, 12:39 p.m.
    City, State: The Villages, FL
    Occupation: Retired Airline Captain
    Comment: Too many foods are grown on plants that are addicted to 
pesticides. More pesticides are required every year to fend off weeds 
and insect pests. Genetically modified plants are exposing us to 
dangers that have never been tested for or whose time span of effects 
is longer than current evidence can show. Corporate agricultural 
conglomerates concentrate our crops into ``monocultures'' that are 
vulnerable to wipeouts by a single pest they have not been defended 
against. Diversity is the best protection against famine exposure 
through monoculture. Organic farming is the best protection for the 
consumer against unanticipated disease threats. Please don't let 
``politics'' and moneyed interests get in the way of good policy and 
good nutrition.
                                 ______
                                 
                        Comment of Phyllis Hess
    Date Submitted: Sunday, May 20, 2012, 9:34 p.m.
    City, State: Spokane Valley, WA
    Occupation: Homemaker
    Comment: I'm not really sure what the farm bill covers so I may be 
way off base here but my concern is that farmers seem to be prohibited 
from selling their meat, milk, eggs, produce, without a bunch of 
regulation. Why can't I just go next door and buy milk without the 
farmer being in fear of government reprisal? I was raised on fresh milk 
and want my children to have fresh wholesome food from the farm. I want 
to be responsible for choosing the quality of food my children eat. 
Right now the government says that genetically modified corn is ok for 
my family but I can't buy fresh milk. The government says its ok to 
sell chickens from confinement operations where the chickens are 
walking in their own feces and breathing powdered feces every day and 
eating genetically modified feed but the farmer who wants to raise 
clean free range chickens and process them in his own clean (by my 
standards and I'm the consumer) processing facility, is prohibited by 
government regulation. We need food choice and less regulation of the 
farmer. If we go to the farm and don't like the standard we see, we can 
stop buying there. We don't need government micro-managing our food 
supply. The constitution gives no authority to the government to manage 
the raising or selling of food. Just saying.
                                 ______
                                 
                         Comment of Karl Hesse
    Date Submitted: Friday, May 18, 2012, 8:10 p.m.
    City, State: Huntersville, NC
    Producer/Non-producer: Producer
    Type: Fruits
    Size: 50-150 acres
    Comment: The current subsidies for commodity crops do not help 
farmers but raise land rents and give big business processors cheap 
inputs for junk food products. Further, such large scale industrial 
processing is a source for super bug breeding by excessive use of 
chemical and hormonal inputs.
    Instead support and create programs that support beginning farmers 
and ranchers, organic farming, regional farm and food economies, and 
rural development. The future of the U.S. depends upon clean local food 
which means more small diversified farmers and ranchers, more 
sustainable food production, and more economic opportunity in our food 
system;

Karl Hesse.
                                 ______
                                 
                       Comment of Suzette Hewett
    Date Submitted: Thursday, May 03, 2012, 10:32 p.m.
    City, State: Abington, PA
    Occupation: Management Consultant
    Comment: I work part time as a workshare with a local CSA. We 
produce a lot of food organically.
    We don't use chemical sprays, fertilizers, or GMO seeds and we are 
thriving. We could put one of these in every neighborhood and still 
keep growing. People want local food.
    Food that creates local jobs, that is safe to eat, that doesn't 
require you to subsidize it with large payments to large agriculture 
growers. We provide subsidized food to low income families and donate 
to food pantries.
    Rethink the process you are doing and implement the needed changes 
to support local small agriculture. We can feed America and the World.
                                 ______
                                 
                       Comment of Angela Hibbard
    Date Submitted: Friday, May 18, 2012, 9:27 p.m.
    City, State: Detroit, MI
    Occupation: Minister
    Comment: I come from farm country and respect the land and the 
living that comes from it not just in terms of profit but the kind of 
``living'' that comes from access to healthy fresh food. American 
agriculture is held hostage to agribusiness, chemical companies, and 
``markets'' that have nothing to do with people's real needs. You are 
in the places of power which can maintain this hostage situation or 
begin to free both farmers and consumers to benefit the land and the 
food distribution system. In the name of the honesty which you entered 
public service I beg you to show some courage in the face of lobbyists 
and their money.
                                 ______
                                 
                        Comment of Alison Hicks
    Date Submitted: Friday, May 18, 2012, 3:25 p.m.
    City, State: Omaha, NE
    Occupation: Call Center
    Comment: Fake food is negatively impacting the health of many 
Americans. We require healthy food (not GMO) raised sustainably without 
the use of harmful pesticides, extra antibiotics, or GMO (Monsanto). 
Monsanto ``food'' is not healthy for human beings.
                                 ______
                                 
                         Comment of Brian Hicks
    Date Submitted: Monday, May 14, 2012, 11:12 a.m.
    City, State: Oakland, CA
    Occupation: Software Product Manager
    Comment: The farm bill must serve Americans as a whole. This means 
several things:

    1. Support for small local farmers, and for new farmers, so that 
        rural communities can thrive;

    2. Support for growing genuine food (not just industrial 
        commodities like corn and soybeans) to feed people directly;

    3. Ensure that our farmers are good stewards of the land so that it 
        will be healthy and productive for many, many generations. This 
        means supporting farming practices that build soil fertility 
        and do not poison land, plants or animals for short-term 
        productivity gains.

    Thank you!
                                 ______
                                 
                         Comment of Molly Hicks
    Date Submitted: Sunday, May 13, 2012, 3:32 p.m.
    City, State: Hilliard, OH
    Occupation: Social Worker
    Comment: Hello,

    I am writing to urge Congress to NOT reduce funding in the current 
SNAP program. As a housing case manager for The Salvation Army, I see 
hunger firsthand every day. If it weren't for the current SNAP program 
coverage some of my clients would not receive any assistance, which 
would be a huge burden to their already difficult lives.
                                 ______
                                 
                        Comment of Harvey Hiebel
    Date Submitted: Friday, May 18, 2012, 6:35 p.m.
    City, State: Ramona, CA
    Occupation: Retired
    Comment: We need a farm bill that will encourage the small farm 
again not the big ConAgra business. We need to get back to organic 
farming to protect the soil we have and grow more healthy crops. no 
more farm aid to the big farms that grow GM crops. The ConAgra 
corporations do not care about how healthy our food is they only care 
about how much money they can make.
                                 ______
                                 
                       Comment of Alison Higgins
    Date Submitted: Friday, May 18, 2012, 3:21 p.m.
    City, State: Belpre, OH
    Occupation: Office Manager
    Comment: Please help farmers and stop the monopolization of seed 
patenting by Monsanto. The people of this country are becoming more 
informed about what is in our food and we do Not want genetically 
modified foods on the shelves of our grocery stores and markets! The 
more people become aware, the more people will stand up and say No to 
these practices that have become the rule instead of what use to be the 
exception. Please stop the madness.
                                 ______
                                 
                        Comment of Bruce Higgins
    Date Submitted: Friday, May 18, 2012, 8:22 p.m.
    City, State: Livermore, CA
    Occupation: Sales
    Comment: For me it's simple . . . help the small farmers who are 
using sustainable and organic practices . . . period. If large farmers 
commit to using 100% organic practices, then they should be included as 
well.
                                 ______
                                 
                       Comment of Laurie Higgins
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Collegeville, PA
    Occupation: Homeowner
    Comment: The farm bill must be changed. Support organic, 
vegetables, fruit, and Small family farms--Not agribusiness such as 
Monsanto, Cargill, ADM--or Any GMO ``foods''.
                                 ______
                                 
                        Comment of Susan Higgins
    Date Submitted: Wednesday, May 16, 2012, 1:25 p.m.
    City, State: Phoenix, AZ
    Occupation: Community Outreach Specialist
    Comment: Problems for low-income people regarding the quality and 
quantity of food continue to appear as I visit my clients. We need to 
support community food banks with policies and programs like SNAP and 
others. Seniors especially need help in getting proper nutrition. Thank 
you for supporting food programs as part of the safety net for those 
who are struggling.
                                 ______
                                 
                         Comment of Mike Hiland
    Date Submitted: Friday, May 18, 2012, 1:15 a.m.
    City, State: Sherwood, OR
    Occupation: Computer Programmer
    Comment: Please restore full funding for the SNAP and TEFAP 
programs and do not cut them. Now is not the time to turn our backs on 
the poor and vulnerable, we cannot bring down the deficit on the backs 
of the poor.
    Thank you.
                                 ______
                                 
                       Comment of Amanda Hilburn
    Date Submitted: Friday, May 18, 2012, 5:09 p.m.
    City, State: Fort Collins, CO
    Occupation: Domestic
    Comment: No GMO! Please consider how deadly and harmful it has been 
for rats . . . how would it be any better for humans. And no Monsanto 
crops that make their own pesticide . . . Monsanto is responsible for 
Round Up and Agent Orange. Stop Killing Sustainable, Local Organic 
Farming. Hemp can be used for thousands of purposes . . . please 
consider hemp.
                                 ______
                                 
                      Comment of Cindy Hildebrand
    Date Submitted: Friday, May 18, 2012, 3:12 p.m.
    City, State: Ames, IA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: 301-500 acres
    Comment: I am a rural Iowa resident and own land in two counties. 
My land produces diverse prairie seed which is harvested every year, in 
addition to biodiversity, clean water, clean air, improved soil, stored 
carbon, research, and recreation.
    My absolute number one priority for the new farm bill is 
conservation compliance in return for subsidized crop insurance. My 
second priority is the strongest possible Sodsaver provision. My third 
priority is conservation funding.
    I will be blunt. As a rural Iowa resident, I can see for myself 
that the farm conservation situation in rural Iowa is bad enough even 
WITH conservation compliance in place. I don't even want to imagine 
what would happen if conservation compliance disappeared.
    I can drive in any direction and see sheet erosion, gullying, 
officially-impaired rivers, creeks, and lakes, and more trees and 
perennial vegetation being bulldozed for the sake of more row crops. I 
drove through what looked like a miniature Dust Bowl scene just 
yesterday as planting was being done.
    Iowa has some of the worst water in the nation and is a major 
contributor to the Dead Zone. The average Iowa row cropped acre is 
losing topsoil more than ten times as fast as it can be replaced. We 
desperately need more conservation in this farm bill, not less. And if 
more funding is not possible, American taxpayers have every right to at 
least expect conservation compliance in return for handing over money 
for crop insurance.
    From what I read, new subsidized crop insurance plans promise to be 
very expensive. Why should my tax dollars subsidize soil erosion and 
water pollution so irresponsible producers can make more money?
    Conservation compliance should be a bottom line requirement for any 
tax-subsidized crop insurance. Period. And the more that modest 
proposal is resisted by some farm organizations, the more it is 
obviously needed. If all farmers planned to do good conservation 
anyway, why would there be resistance to conservation compliance? 
Unfortunately, the question answers itself.
    Thank you for reading this message.
                                 ______
                                 
                      Comment of Nita Hildenbrand
    Date Submitted: Friday, May 18, 2012, 5:19 p.m.
    City, State: Kirkland, WA
    Occupation: Retired
    Comment: This country needs to be more conservative in using GMOs, 
treating our farm animals more humanely, be more careful in farm 
pesticide use so that the runoff into our rivers and streams is kept at 
a minimum, stop using our land as if there is no such thing as poison, 
erosion etc., etc., etc.
    Thank you.
                                 ______
                                 
                        Comment of Allison Hill
    Date Submitted: Friday, May 18, 2012, 6:36 p.m.
    City, State: Taos, NM
    Occupation: Chef
    Comment: Increase subsidies to vegetable and Organic producers. 
Stop supporting factory farms. Let small producers prosper with a 
system so they can succeed. Boycott GMO crops completely, and ensure 
their labeling.
                                 ______
                                 
                         Comment of Steve Hill
    Date Submitted: Friday, May 18, 2012, 2:34 p.m.
    City, State: Brookings, OR
    Occupation: Welder, Writer
    Comment: My initial thought is to thank the members of the 
committee for serving, but I have to wonder who is being served. Less 
and less do I believe it is the consumer, or small farmer, but 
industrial agriculture and their moneyed concerns.
    When I fly over the country, or see photos of current agricultural 
practices, what I am reminded of is not the hard-working American 
farmer, but the Soviet Collective we were taught to fear as children. I 
have to ask, does it matter if food supply is controlled by a Politburo 
or a boardroom? The reality is the end result is the same; no choice, 
no say, no recourse if there is a serious problem. Many say let markets 
sort it out, they'll do the right thing. When? The reality is that 
unless there is an untenable loss of life and resultant outcry that may 
impact the bottom line, there has never been an impetus for installing 
a moral compass at the helm of industry. Agriculture in this country is 
now an industry more than anything else. I read numerous fabrication 
journals relating to my business, and what I have noticed is industry 
today is focused not on quality of product, but efficiency of process. 
The push is not to make a good level of profit by turning out the very 
best products, but my streamlining and paring down the process so that 
the largest amount of product at the least cost is shoved out. I've not 
seen an article about maximizing quality of product in years 
(advertising notwithstanding), but hundreds about how to maximize 
profit.
    Agriculture is the same. We turn out ton after ton of product with 
no real thought about its quality. Industry would say that isn't true, 
but if you do as many of us have and compare a personal diet of 
organic, heirloom, or homegrown produce, and meat not from a factory or 
feedlot but from a pasture, you will simply know that industry claims 
are untrue.
    The backbone of the American diet is the small farmer growing high 
quality produce. Industrial agriculture and U.S. farm policy has made 
that backbone soft, porous, in danger of a major fracture.
    In a world where money is deified, I urge the committee to make 
decisions that favor the farmers, and by extension the rest of us. Do 
what industry will not. Agribusiness has money enough. Help small 
organic farmers and their local communities.
                                 ______
                                 
                     Comment of Gabrielle Hinahara
    Date Submitted: Saturday, May 12, 2012, 10:24 a.m.
    City, State: Middleton, WI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I believe that America needs a farm bill that supports 
sustainable agriculture and access to healthy, fresh, local, and 
chemical and GMO-free food for everyone, including students eating 
school lunch. The priority should be on supporting agricultural and 
food systems that will benefit people and environment long-term, which 
means an emphasis on soil fertility, crop rotation, diversity (animals 
and crops being grown on the same piece of land), etc.
                                 ______
                                 
                        Comment of Sandra Hinds
    Date Submitted: Friday, April 27, 2012, 2:32 p.m.
    City, State: Las Vegas, NV
    Occupation: Displaced Worker--Full Time Student UNLV--Elementary 
Education
    Comment: Protect the TEFAP and SNAP programs within the farm bill. 
The statistics are staggering of those people who have been affected by 
the recession. Even though the economy is growing, the programs need to 
continue until the time those who Need these helpers are able to get on 
their feet an no longer need the programs! It will self correct with 
the economy going in the positive direction. Thanks for listening.

Sandra Hinds,
Las Vegas.
                                 ______
                                 
                         Comment of Aren Hinely
    Date Submitted: Saturday, May 19, 2012, 1:12 a.m.
    City, State: Portland, OR
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: It's important that any Federal assistance for large farms 
be connected to conservation requirements, if only because large scale 
can lead to larger problems and benefits.
                                 ______
                                 
                        Comment of Robert Hinely
    Date Submitted: Friday, May 18, 2012, 1:23 p.m.
    City, State: Sheridan, OR
    Producer/Non-producer: Producer
    Type: Fruits, Greenhouse/nursery, Livestock, Poultry/poultry 
products
    Size: Less than 50 acres
    Comment: I come from a health care background and when we started 
our farm a year ago I was shocked to see what it takes to earn a living 
from a small farm. In fact, both my wife and I still subsidize our 
farming activity with our day jobs and I think that is not fair. From 
talking with other family farmers, I think that is also the norm; at 
least one of the producers must work outside the farm.
    You should be able to make a living from growing good quality food 
for people without having to rely on outside income. I strongly urge 
this committee to end subsidies to large scale agri-biz so that smaller 
entities can compete. We should not need expensive lobbyists for you 
folks to see the light of day. (Read some Wendell Berry for heaven's 
sake). This country's agricultural policy started going downhill with 
Earl Butz in the 1970s but you can put us back on the road to 
sustainability with an improved farm bill. Good luck.
                                 ______
                                 
                       Comment of Brant Hinrichs
    Date Submitted: Saturday, May 19, 2012, 1:17 a.m.
    City, State: Springfield, MO
    Occupation: Teacher
    Comment: I support the following provisions:

    (1) The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (4) Maintaining the EQIP Organic Initiative.

    Local sustainable food supplies are absolutely essential if we are 
to get off our addiction to cheap energy and prepare for a difficult 
and challenging future. My kids are depending on it. What do big 
factory farmers fear? Let us have the opportunity to eat healthy 
sustainably grown food. The obesity epidemic in the USA pleads on both 
knees for it.
    Please watch the movie Food Inc. to learn about how broken our 
``food;; system really is--economically, ethically, morally, 
environmentally, sustainably, healthily, etc., etc., etc.
    Thank you for reading this far and taking my comments into 
consideration.
                                 ______
                                 
                          Comment of Ruth Hipp
    Date Submitted: Friday, May 18, 2012, 12:05 p.m.
    City, State: Alexis, NC
    Occupation: Elementary School Media Assistant
    Comment: As a cancer survivor, I know the importance of healthy 
food and environment. We must put a stop to GMO foods, excessive 
chemical use, and poor agricultural practices. Joel Salatin of Polyface 
farms in Va. has the right idea for growing crops and livestock for 
better food and environment. We Must support our local farmers, 
particularly those in organic growing and cut the mega factory farms 
and commodity crops that have been detrimental to our health and 
environment. Monsanto needs to be Stopped with all its GMO, pesticide 
related crop growing. They have sucked the life out of those farmers 
who initially grew their products for profit, only to find themselves 
trapped in a losing situation. America won't have to worry about being 
taken down by terrorists because we have become our own worst enemy by 
the way we practice agriculture and throw in big Pharma's drugs while 
you're at it! It Is Time To Take Back America's Health In Agriculture 
And Environmental Practices. 
                                 ______
                                 
                       Comment of Russell Hirsch
    Date Submitted: Friday, May 18, 2012, 4:06 p.m.
    City, State: Kailua, HI
    Comment: The security of our nation demands that we focus financial 
support of local, small farmers growing food products. We must be 
prepared for a future of high petroleum input costs and transportation 
costs that does not result in inflation in food costs for our people. 
Medical costs and the cost of sickness on productivity that are now 
skyrocketing can also be dramatically be improved by eliminating 
support for mono-field and GMO corn, soy, cotton, beet and canola. 
Encouraging the use of organic and natural system farming is key to our 
nation having a healthy, positive future.
                                 ______
                                 
                      Comment of Jerry Hirschinger
    Date Submitted: Friday, May 18, 2012, 2:39 p.m.
    City, State: West Lafayette, IN
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: Support small farmers who attempt to grow their own seed. 
Stop subsidies to factory farms and agribusinesses which pollute 
heirloom gene pools with patented DNA. Allow consumers to choose 
organic and unpasteurized produce. Stop giving large corporate 
agribusinesses competitive advantages over small producers.
                                 ______
                                 
                       Comment of Wendy Hirschman
    Date Submitted: Friday, May 18, 2012, 2:21 p.m.
    City, State: Frisco, TX
    Occupation: Mom
    Comment: I find it very interesting that the government wants to 
make restaurants to list on their menu's the fat content, etc. for each 
dish, appetizer, etc. but (and that is a big But) the Federal 
government is allowing GMO foods to be continued to be produced even 
though they have carcinogenics that could not only make the citizens of 
the U.S. sick, affect babies while they are still in the womb, etc. 
This is inexcusable and GMO grown food should be outlawed. Who knows 
what other horrendous effects that these GMO's products can do to a 
human being. The government does not do any studies about GMO effects 
on the populace--Why. I believe that the government should let the 
people to be able to purchase food for our families that do not have 
anything to do with GMO's. Please support the organic farmers who are 
trying to produce and sell their products to the American people. This 
will also lower our health care bills since we will not get sick as 
much. Thanks for your time. Wendy Hirschman a mom who wants to keep her 
family healthy and to be able to purchase safe food for us to consume.
                                 ______
                                 
                         Comment of Carol Hirth
    Date Submitted: Friday, May 18, 2012, 7:44 p.m.
    City, State: Berkeley, CA
    Occupation: State Employee
    Comment: Please put small farmers, consumers and farmworkers first, 
not big agricultural corporations, they don't need or deserve 
subsidies, support or priority.
                                 ______
                                 
                       Comment of Jamie Hirthler
    Date Submitted: Friday, May 18, 2012, 1:52 p.m.
    City, State: Atlanta, GA
    Occupation: Teacher
    Comment: We need major reform for our country's policies on food 
and agriculture. Corporate agribusiness has become the dominant force 
in determining the agricultural practices of our nation, thus feeding 
our people based on cheap products with high profit margins instead of 
focusing on health. This in turn creates more sickness and disease 
because we are not eating right, and we end up spending more money on 
health care. Wouldn't it be better if we prevented the illnesses by 
eating healthy, natural, nutritious organic foods? We could also stop 
poisoning our Earth and our farm workers with harsh chemical 
pesticides. Please support nutrition and organic farming in the next 
farm bill. Our country needs to be healthy in order to thrive!
                                 ______
                                 
                         Comment of John Hirtle
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: Lexington, MA
    Occupation: Carpenter
    Comment: Our survival depends on re-evaluating big ag--factory 
farming--which the U.S. has favored over smaller, family owned 
sustainable farms, which have been unfairly systematically destroyed by 
this imbalance. Giant wealthy ag corporations don't need subsidies or 
to be paid to not grow crops. Obviously factory farms are where the big 
money is and therefore have an army of lobbyists influencing policy. So 
instead of common sense, what prevails is what's good for rich factory 
farm operations that are only interested in profits that come at the 
expense of our environment, the ethical treatment of livestock, our 
health and countless traditional farming families who have been using 
the land sustainably for generations.
                                 ______
                                 
                       Comment of Barbara Hladun
    Date Submitted: Friday, May 18, 2012, 6:13 p.m.
    City, State: Fairport, NY
    Occupation: Retired
    Comment: Please do the right thing for the people . . . give us 
food that is safe to eat and feed to our families. Leave politics and 
lobbyists, especially companies like Monsanto, out of the equation. And 
never forget you work for the people that put you in office, not the 
corporations with the big bucks.
    Thank you.
                                 ______
                                 
                       Comment of Michael Hocevar
    Date Submitted: Saturday, May 19, 2012, 4:48 p.m.
    City, State: Georgetown, CO
    Occupation: Finance Real Estate
    Comment: If people let the government decide what foods they eat 
and what medicines they take, their bodies will soon be in as sorry a 
state as are the souls who live under tyranny.
                                 ______
                                 
                      Comment of Susan Hochanadel
    Date Submitted: Friday, May 18, 2012, 4:18 p.m.
    City, State: La Follette, TN
    Occupation: Retired
    Comment: If we are serious about improving the health of the 
citizens of our nation (and reducing healthcare costs) we need to look 
first at our food and the source of our food. Please consider a farm 
bill that supports food production that is healthy for consumers and 
for our planet.
                                 ______
                                 
                         Comment of Amy Hocking
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Minooka, IL
    Occupation: Substitute Teacher and Stay-at-Home Mom
    Comment: Our family is a middle class educated family that lives in 
Minooka. I care what goes into the mouths of my family. Our diet 
consists of whole foods, barely any foods processed. We do not consume 
refined and artificial sugar (HFCS). We rely on organic farmers in our 
area for our beef, chicken, and produce. Please do not ignore our plea 
for a smart Farm bill. I want to be able to buy from local farms who 
grow food for my family responsibly without the use of pesticides or 
GMO seed.
                                 ______
                                 
                       Comment of Claudine Hodges
    Date Submitted: Sunday, May 20, 2012, 9:55 a.m.
    City, State: Fincastle, VA
    Occupation: Organic Edible Landscape Design and Installer
    Comment: I am 39 years old. I have an environmental Science degree 
from the University of Virginia. I have worked as an arborist, for the 
Department of Forestry, and as a High School Horticulture and Ecology 
teacher for 3 years though the SOL requirements ran me off--When my 
provisional licensure ran out as I was missing two classes for dual 
certification, I quit. What I felt the education system needed that I 
might be able to provide was nutrition. My students had very limited 
familiarity and access to healthy food.
    I started a pastured poultry farm with the Salatin method on a 
borrowed farm--paid for in $6,000 of manure applied to the beef cattle 
pastures. When that farm went up for sale I ran another organic 
vegetable operation that also went up for sale 2 years later. Both 
operations were clearly headed for profitability after the first year! 
And I had no experience farming. Small scale farming works but I 
couldn't afford the land. Mentorship programs are key! I had a farmer 
pull up in front of my home in the middle of town and offer that first 
farm to me. Americans need healthy food--and they want it. My clients 
ask me to sell produce all the time, but I simply can't afford to get 
started. Now, I am just trying to teach them how to grow their own. 
Really the vast majority would rather just be able to buy greens and 
salad--my specialty and something that isn't available many places.
                                 ______
                                 
                       Comment of Sueyama Hodges
    Date Submitted: Friday, May 18, 2012, 9:09 a.m.
    City, State: Ft. Myers, FL
    Comment: We the people deserve fresh chemical free produce and at 
an affordable price. Where everyone involved in growing, transporting, 
selling and consuming is treated fairly. Keep our foods whole and 
healthy with minimal chemical use! Our kids need healthy unaltered 
fruits and vegetables on their tables!
                                 ______
                                 
                        Comment of Susan Hodges
    Date Submitted: Friday, May 18, 2012, 10:03 a.m.
    City, State: Athens, GA
    Occupation: Pastry Chef, Backyard Gardener
    Comment: U.S. Agriculture policies need to change to reflect our 
growing understanding of the importance of supporting local and 
sustainable agriculture; we need to stop funding the biggest, most 
industrialized agricultural enterprises that do not need money and do 
not provide the most nutritious food, and use some of those funds 
instead to support smaller scale farmers and ranchers, especially those 
using environmentally friendly production methods.
    Therefore, as the committee considers the 2012 Food and Farm Bill, 
I urge you to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                         Comment of Heinz Hoeke
    Date Submitted: Friday, May 18, 2012, 2:19 p.m.
    City, State: Highland, UT
    Occupation: Retired
    Comment: The American people need a farm bill that protects their 
interests, e.g., food crops produced free of GMOs and organic. The 
agricultural corporations are only interested in profits regardless of 
the consequences. Organic farmers need to be protected from inroads 
made by Monsanto, which are aimed to destroy family farmers.
                                 ______
                                 
                         Comment of Linda Hoff
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Grand Blanc, MI
    Occupation: Advocate
    Comment: I am a consumer and a back yard producer. As a taxpayer, I 
endorse legislative support of healthy farm practices, Not big business 
CAFOs, or tobacco farming, GM foods, or any other antisocial practices. 
I believe that our current system of farming with pesticides and 
antibiotics is harming people's health and our economy.
                                 ______
                                 
                       Comment of Antonia Hoffman
    Date Submitted: Saturday, May 19, 2012, 1:28 p.m.
    City, State: Las Vegas, NV
    Occupation: Realtor
    Comment: I am all for Organic Farmers. I care where my food comes 
from and want pesticide free produce. We talk about health care when we 
should be concerned what we are eating first.
                                 ______
                                 
                      Comment of Carleton Hoffman
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: San Francisco, CA
    Occupation: Retired
    Comment: Stop taking orders from Monsanto and other lobbyists and 
develop a policy that supports strictly defined organic standards and 
prohibits genetically engineered crops.
                                 ______
                                 
                        Comment of Marc Hoffman
    Date Submitted: Friday, May 18, 2012, 2:07 p.m.
    City, State: North Wales, PA
    Occupation: Real Estate
    Comment: It is critical that a farm bill address the need for 
healthier, more humane foods. Organic food must play an important role. 
Our food choices in this country are entirely too unhealthy.
                                 ______
                                 
                       Comment of Pauline Hoffman
    Date Submitted: Tuesday, April 17, 2012, 2:56 p.m.
    City, State: Butler, PA
    Occupation: Homemaker/Stay-at-Home Mother
    Comment: Please sign the farm bill and give the people of your 
district the right to good, healthy, food and the choice to choose the 
additives and the lack of chemicals in our food. We want the choice of 
knowing what is being used, what is being put into our food. What the 
additives are, what the chemicals are that are used to grow the food. 
Pink slime is a terrible time in our country's history that I hope will 
never be again and we will look at it as a terrible mistake and learn 
from it, and never allow that kinds of additive in our food again 
without the express knowledge of the consumer and full disclosure. 
Thank you.
                                 ______
                                 
                       Comment of Janet Hoffmann
    Date Submitted: Sunday, May 20, 2012, 3:04 p.m.
    City, State: Campbell, CA
    Occupation: Teacher
    Comment: Please support a farm bill that stops giving subsidies to 
large, wealthy, growers for crops that are unhealthy and unsustainable. 
Instead we should be using public funding to support small farms who 
are truly struggling and for development of agricultural methods that 
use fewer herbicides and pesticides.
                                 ______
                                 
                        Comment of Kyle Hoffmann
    Date Submitted: Friday, May 18, 2012, 7:15 p.m.
    City, State: Newton, IA
    Occupation: Student of Mechanical Engineering at Iowa State 
University
    Comment: Please fund the Organic Agriculture Research and Extension 
Initiative at $30 million per year in mandatory funding. Investing in 
sustainable agricultural research such as organic, permaculture, 
Holistic Management, and garden forestry while promoting local foods 
are essential to providing the quality of life we all deserve.
    Please support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286).
    Please support the full funding of conservation programs like the 
Conservation Stewardship Program (CSP), and make sure that enrollment 
in any new insurance subsidies are tied directly to compliance with 
conservation programs. Also, improve CSP by ranking applications solely 
on their conservation benefits. Many farmers count on CSP as well as 
other conservation programs to conserve soil for future generations, 
keep water and air clean, and create habitat for wildlife while 
simultaneously farming profitably.
    Please fully fund the Beginning Farmer and Rancher Development 
Program with mandatory funding that guarantees $25 million per year 
while implementing all of the provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236). We need to support beginning 
farmers and ranchers entering agriculture.
    Please support the maintaining of the EQIP Organic Initiative.
    With the increase in energy costs, the increase in obesity, the 
increase in cancer and other chronic diseases we need to focus on 
improving the quality of food people are eating and that starts with 
improving the quality of the soil. We can't afford to have the average 
American meal shipped 1500 miles before it reaches our plate. We need 
to set up a system that relies on locally produced foods from farmers 
who use sustainable practices that builds soil instead of degrading it.
    Please eliminate all subsidies that support ethanol production and 
ethanol research. Current research from the University of California, 
Cornell University, and others has shown that it takes more energy to 
produce ethanol than it saves when incorporating the overall energy 
balance. Therefore we have been wasting billions of taxpayers' dollars 
on a fuel that doesn't save energy and the practice of growing corn for 
ethanol has been degrading our soil, water, and air dramatically.
    Thank you for your time.
                                 ______
                                 
                         Comment of Mary Hogan
    Date Submitted: Friday, May 18, 2012, 1:00 p.m.
    City, State: Guysville, OH
    Occupation: Artist, Gardener
    Comment: We need a farm bill that supports small diversified family 
farms. These farms provide true food security. Almost all food issues 
of safety and animal abuse are issues of mega, corporate farms, not 
small farms. Small, family farms, ideally using organic and sustainable 
methods, need support and exemptions from the rules needed by the mega-
farms.
                                 ______
                                 
                        Comment of Sabrina Hogan
    Date Submitted: Sunday, May 20, 2012, 9:05 p.m.
    City, State: Monrovia, CA
    Occupation: Actor/Artist/Environmentalist
    Comment: Please keep Organic food pure, the way GOD create it, in 
the context of how it was grown in the early 1900's and before . . . 
before chemicals and science altered it! Keep the farms in the hands of 
the people not corporations or government and grow what we need not 
subsidize crops! Thanks!
                                 ______
                                 
                   Submitted Letter by Laura Holbrook
Hon. Frank D. Lucas,
Chairman,
House Committee on Agriculture,
Washington, D.C.

    Dear Congressman Lucas:

    I am writing to you about the U.S. farm bill. First, I hope you 
will accept the Senate's recent draft provisions that support healthy 
diets and food security, including the $5 million annual funding 
increase for Community Food Projects and the inclusion of $100 million 
over 5 years for healthy food incentives.
    I have, however, several concerns about the draft bill that I hope 
can be addressed:

    1. At a time when more households than ever rely on SNAP benefits 
        that often run out before the end of the month, Congress should 
        strengthen, not weaken SNAP, by raising benefits by adopting 
        the Low-Cost Food Plan and eliminating restrictions such as the 
        cap on shelter deductions. This bill would cut $4 billion from 
        SNAP by limiting states' ability to operate ``Heat and Eat'' 
        policies, which would mean less food in the refrigerator for 
        already hungry families.

    2. We commend the Committee's recognition of the urgent need for 
        additional funding for The Emergency Food Assistance Program 
        (TEFAP) but it needs to be fully funded as the need for 
        emergency food has grown substantially. Please include that in 
        the farm bill.

    3. Increased funding to the Senior Farmers' Market Nutrition 
        Program (SFMNP) is needed as the program's demand already 
        outpaces funding. Its mandatory allocation should increase.

    4. While I congratulate you on proposing the elimination of direct 
        payments for commodities and introduction of much needed whole-
        farm revenue insurance, it is unfortunate that these subsidies 
        exist at all, especially in a period in which austerity is 
        being applied in other areas. I would like to see a meaningful 
        per-farm cap on subsidies and a lower individual income limit 
        for recipients (which this bill in fact raises from $500,000 to 
        $900,000). This would save enough money to spare conservation 
        and anti-hunger programs from the proposed cuts. Such payments 
        should be more strongly tied to conservation measures.

    5. I would like to see the following revenue-neutral changes that 
        were not adopted in this draft bill. Requiring that marketing 
        agreements have a firm base price derived from an external 
        source would help restore competition and promote fairness in 
        our food system. Eliminating the EQIP livestock ``set-aside'' 
        and reinstating caps on the size of livestock operations 
        eligible for manure management funding would better achieve 
        conservation goals. In this deficit-cutting climate, we should 
        not miss the opportunity to make these and other important no-
        cost improvements.

    Thank you for your time and attention.
            Sincerely,



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
Laura Holbrook.
                                 ______
                                 
                     Comment of Stephanie Holbrook
    Date Submitted: Saturday, May 19, 2012, 3:26 p.m.
    City, State: Concord, NC
    Occupation: Writer
    Comment: I write to urge you to support organic farm funding and 
also to label foods that are genetically modified. The people have a 
right to know what they are eating. It might also help if you did not 
have a former Monsanto worker having free reign over our food supply. 
If I wanted polyester slacks I'd go to Monsanto but if I want good 
wholesome food I'll go to a local organic farmer.
                                 ______
                                 
             Joint Comment of Bill, Margot & Scott Holcomb
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Tryon, NC
    Occupation: Retired Educator(s) and Son
    Comment: The older male member of this household was raised part-
time on a (hard) working ranch on the Mojave Desert. We are all 
dedicated to the ideal organic farming and encouragement of relatively 
small family owned and operated farms.
                                 ______
                                 
                        Comment of Chris Holder
    Date Submitted: Sunday, May 13, 2012, 7:32 a.m.
    City, State: Hammondsport, NY
    Comment: Good grief, please restore all SNAP funding! Who truly 
believes it is a good idea to take from those who can least afford it? 
This punishes hungry children all across America.
                                 ______
                                 
                       Comment of Rebecca Holder
    Date Submitted: Saturday, May 12, 2012, 7:22 a.m.
    City, State: Hammondsport, NY
    Occupation: Retired
    Comment: As a person who works with programs which feed hungry 
children and families in Yates County (Milly's Pantry Weekend BackPack 
program director and co-director of Food for the Needy,) I am 
distressed about the possibility of cuts to SNAP. We have already had 
large increases in need at our distributions. The local community 
cannot bear the hugely increased cost which will result if these cuts 
are enacted. Thank you for considering.
                                 ______
                                 
                         Comment of Kim Holeton
    Date Submitted: Thursday, May 17, 2012, 11:33 p.m.
    City, State: Sycamore, IL
    Occupation: Organic Food Retailer Store Employee
    Comment: As much as possible, I only buy organic food or locally, 
sustainable raised food. Please ensure that the providers of organic, 
sustainable and local food are protected and supported by the U.S. 
government.
                                 ______
                                 
                       Comment of Sharon Holford
    Date Submitted: Friday, May 18, 2012, 1:53 p.m.
    City, State: Portland, OR
    Occupation: Retired Librarian
    Comment: Please support small local farmers. Stop the subsides to 
conglomerates that poison our food and make it impossible for farmers 
to compete to provide us with healthy, nutritious foods.
                                 ______
                                 
                         Comment of Del Holland
    Date Submitted: Friday, May 18, 2012, 5:28 p.m.
    City, State: Iowa City, IA
    Occupation: Retired
    Comment: As the House Agriculture Committee prepares its version of 
the farm bill, I urge you to restore the link between taxpayer-
supported subsidies for crop insurance and conservation compliance 
protections that will protect the nation's water and land.
                                 ______
                                 
                        Comment of Sage Holland
    Date Submitted: Sunday, May 20, 2012, 12:19 p.m.
    City, State: Fox, AR
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Big farming and semi big Farms ruins the water and the 
soil and creates problems for all the small farmers downstream! If 
continually subsidized it will ruin the future of our hope for simple 
sustenance, there is too much food being wasted and too much commercial 
fertilizers going into the water table, now with drought conditions 
here in our area, entire regions are becoming deserts where there was 
once rain forests !They prevent this reoccurrence of the dust bowl days 
in other countries, but here sanity is seen as big government, when 
really the subsidies is the culprit! we need better regulations to make 
the production of food more long term environmentally sound. The little 
farmers shouldn't have to close up and move away because the big farms 
ruin the land and take all the water!
                                 ______
                                 
                       Comment of Jeffrey Hollar
    Date Submitted: Friday, May 18, 2012, 5:10 p.m.
    City, State: Woodstock, VA
    Occupation: Professor
    Comment: Stop subsidizing corn and soybeans. This policy enables 
huge agribusiness to make more money while providing less nutritious 
food for consumption, particularly for low income people. Farm policies 
must be addressed in the context of health policies. Look at the data 
for diabetes and other chronic health issues and compare it to poor 
farm policies that help big business instead of the consumers. Thank 
you for considering my opinion.
                                 ______
                                 
                         Comment of Kim Hollens
    Date Submitted: Friday, May 18, 2012, 8:37 p.m.
    City, State: Stewartstown, PA
    Occupation: Homemaker
    Comment: I have been supporting the organic farmer and sustainable 
practices as a consumer for over 10 years now. Spurred by my sons 
demand for quality food. We immediately experienced better taste, 
quality and nutrition. Even though the cost was 30% more, I found I 
needed less food as the food I was eating provided 30% more nutrition. 
My body demanded less. All of my grown children and their families make 
the sacrifice to pay more to eat better. Our food should not be a 
commodity for profit alone. It must come with care and concern for our 
environment, the Earth we grow on and the people we feed. We are 
growing Americans. Consider that when you eat food produced by 
industrial farms and wonder if there might be a correlation between 
what we feed our people and how poorly we perform when compared to many 
other countries that do take seriously what they put into their bodies.
    I, Kim Hollens, a voting American, fully endorse the following 
bills,

  <bullet> All provisions of the Local Foods, Farms and Jobs Act (H.R. 
        3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Eutrina Holley
    Date Submitted: Thursday, May 10, 2012, 4:45 a.m.
    City, State: Springfield, MA
    Occupation: Cosmetologist/Entrepreneur
    Comment: Please protect funding for critical Federal nutrition 
programs, and please take into consideration the Supplemental Nutrition 
Assistance Program (SNAP) as you re-evaluate the farm bill.
                                 ______
                                 
                   Comment of Elizabeth Hollingsworth
    Date Submitted: Sunday, May 20, 2012, 7:26 p.m.
    City, State: Pinetta, FL
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery
    Size: Less than 50 acres
    Comment: Get agriculture out of the hands of factory farms & 
politicians! We can feed America just fine without them. Support small 
family farms, which built this country in the first place! And we'll 
all be the healthier for it!
                                 ______
                                 
                     Comment of Christopher Hollis
    Date Submitted: Friday, May 18, 2012, 4:09 p.m.
    City, State: Oakland, CA
    Occupation: Entrepreneur
    Comment: It would be good for this country if the government 
started helping to make this country healthy again and worked for the 
small farmers instead of just the corporations. Can you not see that 
the American people are growing tired of your love of campaign dollars 
at our expense?
                                 ______
                                 
                        Comment of Judith Hollis
    Date Submitted: Sunday, May 20, 2012, 4:22 p.m.
    City, State: Fond Du Lac, WI
    Occupation: Pharmacist
    Comment: I am a natural medicine pharmacist & am concerned greatly 
about what our citizens are eating and the growing tons of insecticides 
used on our foods. Gastroenterologists are saying our G.I. tracts are 
becoming insecticide factories. What is that doing for our delicate 
enzyme systems? Too many people are on proton-pump inhibitors as it is. 
Start thinking about life and less about profits!
                                 ______
                                 
                    Comment of Alicia Joy Hollopeter
    Date Submitted: Friday, May 18, 2012, 6:06 p.m.
    City, State: Lexington Park, MD
    Occupation: Mechanical Engineer
    Comment: Please focus on small, local, sustainable farms, and 
organic foods. Congruently, if American awareness of reasonably priced, 
fresh, local produce is elevated, it would certainly help alleviate the 
pressing national problem of obesity. Southern Maryland has a great 
local farm community and access to healthy choices--and the farmers 
themselves are so knowledgeable about what they provide and offer 
clever recipes and suggestions. This is a lovely way to shop and eat, 
and I feel Americans could benefit from contact like this and become 
healthier. Please help these farms and others like them to thrive, and 
provide the opportunity for other farmers to benefit their communities 
with good, non-processed food.
                                 ______
                                 
                       Comment of Wilbur Holloway
    Date Submitted: Wednesday, May 09, 2012, 7:20 p.m.
    City, State: Newark, OH
    Occupation: Janitor
    Comment: I believe that the United States and Mexico can work 
together showing them how to farm their land. in return the United 
States can buy back some of the food also to help feed the people here 
and also help lower cost here in the United States. Both countries can 
benefit from this we can save lives and it can spread to other 
countries helping there bordering countries.
                                 ______
                                 
                       Comment of Delores Holmes
    Date Submitted: Friday, May 18, 2012, 4:01 p.m.
    City, State: Aston, PA
    Occupation: Retired
    Comment: As a board certified Holistic Health Counselor and a 
mother of children that have struggled with mental health problems I 
cannot stress it enough, how important it is to have access to good 
quality organic food. I have seen firsthand, how people are suffering 
due to eating poor quality food, either pay the farmer or pay the 
Doctor.
                                 ______
                                 
                        Comment of Diane Holmes
    Date Submitted: Saturday, May 19, 2012, 3:30 p.m.
    City, State: San Juan Capistrano, CA
    Occupation: Unemployed
    Comment: Please support the Organic Farm Bill. Please continue to 
provide funding to vital programs such as nutrition, conservation and 
support for organic and sustainable agriculture. The future wellbeing 
of our population is in your hands.
                                 ______
                                 
                        Comment of Tyler Holmes
    Date Submitted: Friday, May 18, 2012, 11:13 a.m.
    City, State: Swannanoa, NC
    Occupation: Adventure Education: SOAR Outdoor Trip Leader
    Comment: The majority of government subsidies for conventional 
agricultural farms is far disproportionate to that of small farms who 
supply fresh local food, which is the most nutritious for the health of 
our nation. There needs to be substantial investments put into 
replenishing the soil with microbiology and nutrients, and scientific 
research is clearly showing that conventional agriculture is 
unsustainable and destructive. Remember the Dust Bowl? I was not alive 
but my grandfather remembers it clearly. He was a true American Farmer, 
and a government nature conservationist.
    Please, think seven generations ahead.
                                 ______
                                 
                        Comment of Nancy Holste
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Fall City, WA
    Occupation: Interior Designer and Health Coach
    Comment: As someone who battled environmental illness with no 
insurance and still working at age 72 I can tell you GMO and chemicals 
are big business not considering the welfare of the people. May no one 
in your families experience the years of suffering, I endured. I 
finally overcame threw years of study and keeping my surroundings and 
food Organic.
                                 ______
                                 
                       Comment of Chandra Holsten
    Date Submitted: Friday, May 18, 2012, 8:32 p.m.
    City, State: Ashland, OR
    Occupation: Gallery Director
    Comment: We, as citizens and consumers, have a right to your 
considerations of our preferences for organic foods that has not been 
affected by GMOs. We are asking you to honor these needs above those of 
big agri-biz to protect us from foods we consider to be unhealthy, or 
even dangerous. Your department needs to be more directly involved in 
the overseeing and regulations that guarantee the purity and safety of 
our foods. Thank you.
                                 ______
                                 
                         Comment of Kendra Holt
    Date Submitted: Saturday, May 19, 2012, 8:52 a.m.
    City, State: Wheaton, MD
    Occupation: Professional Musician
    Comment: It is of the utmost importance that U.S. organic standards 
be as strict as any states' (CA for instance) for the safety of 
consumers. I have bought organic products for years and expect them to 
be just that, not some halfway compromise of convenience. Please do 
your jobs and protect the public from the chemicals and dangers of big 
Agriculture.
                                 ______
                                 
                         Comment of Ana Holtey
    Date Submitted: Saturday, May 19, 2012, 8:10 p.m.
    City, State: Prescott, AZ
    Occupation: Retired
    Comment: With impunity, big farmers ruin Any competition, but the 
small or organic farmer is the best farmer, so much so that they keep 
Earth the way it was meant to be. What are You going to eat when there 
is nothing free of chemicals or hormones left? Girls 13 or 14, with 
breast that Jane Mansfield would had envied, boys big or bigger at the 
same age that most adults, Thanks to the Hormones in milk. Please, stop 
this insanity of not giving people options! If you want poison, eat it, 
I don't and I want a choice.
                                 ______
                                 
                         Comment of James Holtz
    Date Submitted: Friday, May 18, 2012, 10:49 p.m.
    City, State: Petoskey, MI
    Occupation: Manager for Casual Dining Restaurant
    Comment: It is time to end hunger. We cannot continue to give funds 
to farmers so that do not have to grow food on the land. This must 
stop.
    I would like to see aid to farmers to grow more food so that 
America can continue to help all Americans. I would think that it would 
be better to have a food surplus. Thank you.
                                 ______
                                 
                        Comment of Jake Holtzman
    Date Submitted: Friday, May 18, 2012, 10:37 a.m.
    City, State: Oberlin, OH
    Occupation: Student
    Comment: We cannot live without food. So there needs to be more 
policy that allows all people to have access to clean and fresh 
produce. That should be an undeniable right. Secondly, the injustices 
that farmers face across the nation are unbelievable. No farmer should 
be forced into planting GMOs or spraying toxic pesticides that endanger 
the health of both the farmers and the consumers. Let's change the 
system now so that it actually abides by common sense!
                                 ______
                                 
                       Comment of Margot Holtzman
    Date Submitted: Friday, May 18, 2012, 6:16 p.m.
    City, State: San Rafael, CA
    Occupation: Substitute Teacher
    Comment: It is critical that we change our current agricultural 
laws and practices. We need to support sustainable and conservation 
land practices. We need to fund programs that support new and socially 
disadvantaged farmers and ranchers, organic farming and regional and 
local food economies. It is imperative that we end subsidies that award 
big industrial farms and replace that with loophole free agriculture 
risk coverage. Thank you for your consideration. It is in the best 
interests of all of us.
                                 ______
                                 
                       Comment of Michael Holzman
    Date Submitted: Friday, May 18, 2012, 5:49 p.m.
    City, State: Lacey, WA
    Comment: Stop supporting the Big Agra Corporations with subsidies, 
properly label food and it's ingredients (GMO) and if any assistance is 
to be given, let it be to the small farmers.
                                 ______
                                 
                       Comment of Kelly Holzworth
    Date Submitted: Saturday, March 17, 2012, 7:34 a.m.
    City, State: Saratoga Springs, NY
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Please support our small farms by increasing funding for 
programs that help farmers sell their products to their communities. 
Please stop subsidizing big ag and CAFOs. Please increase funding for 
research of organic growing techniques, beginner farmer training, and 
small farm distribution of products.
                                 ______
                                 
                        Comment of Deanna Homer
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Stillwater, OK
    Occupation: Retired
    Comment: Big agriculture does not need to be subsidized, especially 
at the expense of hungry children. Monocultures have ruined the soil 
and the pesticides and herbicides used leave residues in the plants and 
in the soil before being washed into our rivers and streams. Compare 
the money earned by agribusiness with that earned by poor families who 
are trying to feed their children.
                                 ______
                                 
                         Comment of Kady Hommel
    Date Submitted: Friday, May 18, 2012, 1:06 p.m.
    City, State: Colorado Springs, CO
    Occupation: Marketing Consultant
    Comment: Please--let's get this right. Let's make things fair for 
consumers, and for the producers who are working hard, with integrity, 
to bring us safe, sustainable food, and who are committed to good 
stewardship of our land resources.
                                 ______
                                 
                         Comment of Yunie Hong
    Date Submitted: Thursday, May 17, 2012, 1:42 p.m.
    City, State: Washington, D.C.
    Occupation: Policy Advocate, Hmong National Development, Inc.
    Comment: Hmong National Development, Inc. is a national advocacy 
organization that works on behalf of Hmong communities throughout the 
U.S. Large swaths of the Hmong communities are small family farmers 
that are filling the void in rural communities as older generations of 
farmers leave the industry. While they could benefit greatly from 
certain Federal programs, they lack access due to linguistic and 
cultural barriers. As you move forward with the farm bill, we encourage 
you to support and fund programs for small, beginner, minority, and 
socially disadvantaged farmers. Specifically, we ask that you 
incorporate programs that promote rural development such as the 
Beginning Farmer and Rancher Development Program and the Local Farms, 
Food, and Jobs Act. We also ask that you not cut vital SNAP and WIC 
benefits and continue to provide a safety net for those that are 
struggling. In addition, we ask that you support the language in the 
GIPSA rule that protects small farmers from unfair business practices. 
Hmong farmers, particularly those in the poultry business in the 
Ozarks, are being forced to file for bankruptcy and losing their life 
savings due to the conditions in the poultry industry, and they need 
the GIPSA rules to level the playing field.
                                 ______
                                 
                        Comment of Wendy Honold
    Date Submitted: Friday, May 18, 2012, 4:38 p.m.
    City, State: Sheboygan, WI
    Occupation: Managed Care Companion
    Comment: I want GMO labeling on foods, and I support sustainable 
organic farms. I'm very unhappy that Obama appointed a former Monsanto 
Exec. to be the head of agriculture. I wish GMO mutated crop pollen 
invasion of neighboring fields was considered a punishable violation. 
All of your unnecessary pesticides are killing back the bee population 
and other valuable insects. You Are Reforming The Earth In Detrimental 
Ways.
                                 ______
                                 
                        Comment of Stan Hoobing
    Date Submitted: Wednesday, May 09, 2012, 3:08 p.m.
    City, State: Boise, ID
    Occupation: Ordained Lutheran Pastor
    Comment: I would like to see in the farm bill items that strengthen 
such programs as SNAP, meals for senior citizens and that help feed 
young people in public schools.
                                 ______
                                 
                        Comment of Gregory Hood
    Date Submitted: Saturday, May 19, 2012, 2:21 p.m.
    City, State: Apple Valley, CA
    Occupation: Military Contractor
    Comment: The food issue is a personal issue that goes beyond what I 
am putting in my mouth. My wife has an extensive number of food 
allergies and suffers from anaphylaxis to some very basic vegetables 
like carrots and celery. Bottom line is the toxicity of her body is in 
direct proportion with the amount of processed/industrially produced 
food she eats. Soy, wheat, corn and their secondary products like 
lecithin, which prevents proper liver function are far greater problems 
than mold on cheese (many of us pay extra for the mold). I could go on 
but most major industrial food operations are in the business of making 
money--not delivering healthy product. Example: Mad Cow is back. That 
didn't happen in a small dairy operation. Pink slime and meat glue are 
not present or employed to assemble meat products in small food 
operations. The bottom line is the FDA and government is lazy when it 
comes To foodborne illness prevention and disease control. It is far 
easier to monitor one large operation, if poorly, than to track the 
processes of 1,000 smaller ones. The fact that I can't sell or even 
give away fruit from my trees is without a license and overzealous 
regulatory control is crazy. It is waste. This is counter to free 
enterprise and is anti-democratic. Let the people chose what's good for 
them. If we are going to regulate, regulate what is bad, not what is 
good.
                                 ______
                                 
                        Comment of Margaret Hoos
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: Royersford, PA
    Occupation: Housewife
    Comment: There is a limit to what this planet can give in resources 
and take in abuse. We will have to start to take care of it and get rid 
of the overload of manmade chemicals that will destroy nature. We have 
to think about sustainability and not profit (money).
                                 ______
                                 
                         Comment of Kim Hoover
    Date Submitted: Saturday, May 12, 2012, 4:34 p.m.
    City, State: Port Townsend, WA
    Occupation: Home Health Care Worker
    Comment: I am very concerned about the serious state of health of 
our citizens and our environment. Numerous reliable, peer-reviewed, 
governmentally funded studies show that eating an animal-based diet is 
deleterious to our health and that we would all be healthier eating a 
plant-based diet. Animal-based diets are correlated with obesity, 
cardiovascular disease, diabetes, and cancer,\1\<SUP>-</SUP>\3\ the 
leading causes of deaths in the U.S., in addition to being a serious 
detriment to our economy. In addition, growing animals for food uses 
50% more energy,\4\ takes much more water and land,\5\ and produces 
much more soil, air, and water pollution.\6\
---------------------------------------------------------------------------
    \1\ The China Study, T. Colin Campbell and Thomas M. Campbell.
    \2\ Dr. Neal Barnard's Program for Reversing Diabetes
    \3\ Prevent and Reverse Heart Disease, Caldwell B. Esselstyn, Jr., 
M.D.
    \4\ Food, Energy, and Society, Pimental, D. and Pimentel, M.H.
    \5\ Bioscience 54 (10): 909-918
    \6\ Plan B: Rescuing a Planet under Stress and A Civilization in 
Trouble, Lester R. Brown.
---------------------------------------------------------------------------
    Yet, the majority of our farm subsidies go to the dairy, meat, and 
fishery industries and to grow the monoculture of corn and soybeans 
that are fed to these animals. Basically, as taxpayers, and as a 
government, we are in reality PAYING to make people sick and to degrade 
the environment at the same time.
    This is nothing less than a travesty and I implore you to please 
make the changes necessary to the next farm bill to eliminate these 
subsidies so as to support healthy plant-based diets for our school 
lunch programs, WIC and SNAP programs. Elimination of the meat and 
dairy subsidies will show the true cost of a fast food meal and will 
result in an increase in healthy eating habits of all Americans.
            Sincerely,

Kim Hoover.
                                 ______
                                 
                      Comment of Rev. Glenda Hope
    Date Submitted: Friday, May 18, 2012, 2:35 p.m.
    City, State: San Francisco, CA
    Occupation: Clergy
    Comment: For 40 years I have worked with the poor families, 
disabled people and others in San Francisco's Tenderloin. I know how 
vital the food stamps are for them.
    Surely it is time to stop subsidies for such crops as cotton and 
soybeans and invest in developing farming practices that are 
sustainable and positive for the planet.
    Thank you for considering this as you vote on this legislation.

Rev. Glenda Hope.
                                 ______
                                 
                      Comment of Brittany Hopkins
    Date Submitted: Sunday, May 20, 2012, 9:55 p.m.
    City, State: Bangor, ME
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a young farmer 
in my first year as owner of Wise Acre Farm in Kenduskeag, Maine, which 
will be selling fresh vegetables to local farmers' markets and 
institutions in the greater Bangor area. I think it is important for 
the farm bill to include and expand programs that help the next 
generation of growers build strong farm businesses. The country needs 
us to grow food, create jobs and support the many other businesses that 
furnish our supplies and equipment. I ask that the Committee endorse 
all of the provisions of the Beginning Farmer and Rancher Opportunity 
Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country, 
        including the Maine Organic Farmers and Gardeners Association's 
        Journeyperson program, which is providing incredibly helpful 
        educational and technical assistance to me for the next 2 years 
        as I launch my farm business.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs. I 
        have applied for funding to support a high tunnel, cover 
        cropping and establishing organic certification through the 
        EQIP Organic Initiative, and the cost share differential for 
        beginning farmers makes a big difference in making this program 
        worth the time and paperwork for me and other farmers starting 
        out on a small scale.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Brittany Hopkins.
                                 ______
                                 
                        Comment of Robert Horan
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Vermilion, OH
    Comment: Farm food should be free to grow, sell, eat, and transport 
Period. Only Food Factories and Corporations should be controlled and 
manipulated. It was the family farm that built this country and it was 
corporations and politicians who have ruined it. It's time once again 
for the Constitution to be used and our freedoms to reign. I have the 
right to drink raw milk should I chose to. It's none of your concern 
until factories poison our food and intentionally destroy the life 
within it. Family farms are to be protected and free at all costs. 
Corporations and food factories are to be discouraged and defeated at 
every turn and at all costs. Food should be grown, sold, and eaten 
locally without regulation. Bad farmers do not last long if his 
customers choose the farm down the road. The government is the one 
needing regulation, and it was written in the Constitution that it be 
severely limited.
                                 ______
                                 
                        Comment of Maika Horjus
    Date Submitted: Sunday, May 20, 2012, 2:31 a.m.
    City, State: Vancouver, WA
    Occupation: Transportation/Administration
    Comment: I appreciate your work on our nation's food and farm 
policy and strongly urge you to make this farm bill about Food. Make 
this a Bill about creating a healthy, resilient nation that values the 
health of its people, its land, and All of its farmers. Make this Bill 
about healthy, nutritious, accessible food for every child, family, and 
individual in every region of the nation.
    I strongly support:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

    I also beg that you defend our democracy and keep the good of the 
people--particularly the most vulnerable in our nation--at the 
forefront of your policy-making. Thank you so much for your 
consideration in this matter and for your public service on behalf of 
all Americans--the hungry, the hardworking, the malnourished, the 
obese, the uneducated, the well-educated, the aspiring farmers, the 
health workers, the farm workers, the politicians, the fathers and 
mothers and sons and daughters, the grandchildren . . . this is not 
just a bill about agriculture; this Bill is about all of them. This 
Bill is about our values and priorities as a country. Please consider 
this as you discuss.
    Thanks again.
                                 ______
                                 
                          Comment of Jane Horn
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: Eugene, OR
    Occupation: Real Estate Agent
    Comment: For all of our sakes, you have this chance to give us the 
kind of food we need to thrive. Processed food is causing a raft of 
lifelong ailments. We need to keep the food system natural.
                                 ______
                                 
                       Comment of Deborah Horner
    Date Submitted: Friday, May 18, 2012, 10:44 p.m.
    City, State: Denver, CO
    Occupation: Retired Teacher
    Comment: We urgently need a farm bill that puts the health of 
individuals, of precious farm land and small farmers First. Corporate 
agribusiness practices negate all of the above priorities. Let's get it 
right! Now!
                                 ______
                                 
                       Comment of Joanne Horsman
    Date Submitted: Friday, May 18, 2012, 6:55 p.m.
    City, State: Camillus, NY
    Occupation: Marketing Consultant
    Comment: We desperately need a farm bill that supports local, 
organic and NOFA pledged farming standards. Enough with all the 
subsidies for Big Agribusiness. I plead for a more local friendly farm 
bill.
                                 ______
                                 
                         Comment of Ruth Hosek
    Date Submitted: Friday, May 18, 2012, 2:08 p.m.
    City, State: Chicago, IL
    Occupation: Retired Teacher
    Comment: There is no excuse for growing crops that are injurious to 
the health of those who eat them. GMO crops are especially injurious 
and should be banned as soon as possible. They have already done great 
damage but perhaps their continued evil can be mitigated by destroying 
them forever. Oh, yes--poor Monsanto. They might lose money. It is only 
money and they can make more by devising helpful things instead of evil 
and polluting things. Interesting idea?
    I hope you will not condemn your progeny to early disease and death 
by allowing more distribution of these GMOs. Your name will live on 
only to be excoriated and hated by them as they live short, unhealthy 
lives.
    And we who now are alive, we need to have that produce labeled so 
we can choose between health and death. You were chosen to preserve and 
protect. Do your jobs. Or have they given you a cook book on how to 
prepare money as a meal?
                                 ______
                                 
                       Comment of Nancy Hotaling
    Date Submitted: Friday, May 18, 2012, 1:38 p.m.
    City, State: Riverside, CA
    Occupation: Grounds Keeper
    Comment: We need to support Sustainable farming! AND make sure we 
have adequate over sight to assure that our food is kept safe. Please 
work to protect the American people's food sources. Take a look at the 
wonderful work being done by the Kansas Land Institute.
    Thank you.
                                 ______
                                 
                        Comment of Evelyn Houben
    Date Submitted: Sunday, May 20, 2012, 4:39 p.m.
    City, State: Ft. Lauderdale, FL
    Occupation: Writer
    Comment: Let's protect small farmers. We need locally grown food 
which isn't transported thousands of miles before it just reaches our 
stores. We need to do more to encourage organic foods. GMO foods or 
ingredients shouldn't simply be labeled, which, for the most part, they 
are not, and ``natural'' labeling allows consumers to be misinformed. 
We need a ban on GMO crops. We need high fructose banned from all 
foods. These are only o some of the changes needed. Our food chain is 
making Americans Sick and think of how much health care costs! Agro-
business is a shady industry. Do not allow it to continue poisoning us.
    Thanks for your attention and concern about these matters.
                                 ______
                                 
                         Comment of Dixie House
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Jeffersonville, IN
    Occupation: Retired
    Comment: I feel strongly that everyone should be able to know what 
is in the food we buy. Also, I support organic farming and all small 
farmers. I will be watching to see how you vote.
                                 ______
                                 
                      Comment of Brian L. Houseal
    Date Submitted: Thursday, May 17, 2012, 12:25 p.m.
    City, State: Elizabethtown, NY
    Occupation: Executive Director--Adirondack Council
    Comment: May 16, 2012

House Committee on Agriculture,
Washington, D.C.

    Dear Mr. Chairman and the House Committee on Agriculture:

    The Adirondack Council, a member based nonprofit organization 
dedicated to ensuring the ecological integrity and wild character of 
the Adirondack Park, appreciates the opportunity to comment on the 2012 
Farm Bill. Our organization advocates for the conservation and 
improvement of agricultural lands in the Adirondack Park, for the 
sustainable production of food crops and forestry products, and for the 
protection of ecological resources. We seek to support and promote 
farming and forestry that upholds rural quality of life, clean air and 
water, native wildlife, and vibrant local communities. In addition to 
its recognition as the East's greatest wilderness, the Adirondack Park 
is home to approximately 52,000 acres of farmland, with the greatest 
concentration in the Lake Champlain and St. Lawrence River valleys.
    Despite growing public interest in local food and open space 
preservation, these farmlands and forests face the same formidable list 
of challenges as others across the nation. The celebrated woodlands of 
the Adirondacks are under constant siege of fragmentation due to second 
home development, and similarly, small family farmers disadvantaged by 
incentives that favor large-scale agribusiness are pressured to 
subdivide or sell their land to developers.
    Mindful of these challenges, it is imperative that the farm bill 
puts incentives in place to protect the quality and quantity of our 
forests, and strives to ensure that small farms remain economically 
viable, while also building upon past initiatives to promote 
ecologically sound farming practices and conservation efforts.
    The Adirondack Council enthusiastically applauds the Senate 
Committee on Agriculture's continued and expanded support of the Forest 
Legacy Program, and wishes to see the House follow their example.
    Additionally, the Committee's endorsement of the grant-based 
Northern Border Regional Commission is vital for advancing 
environmentally responsible community development projects in rural 
areas of New York, Vermont, New Hampshire, and Maine.
    While the Senate's support of these programs is commendable, we 
urge the House Committee to distinguish itself by fully funding the 
Conservation Stewardship Program (CSP). As the primary vehicle for 
encouraging farmers to implement ecologically beneficial practices 
through economic incentives (encompassing issues such as soil quality, 
erosion, water quantity and quality, biodiversity, air quality, energy 
conservation, etc.), funding of the CSP would greatly improve the 
capacity of farmers to restore the resilience and health of their 
farmland and parent ecosystems throughout the country. Such an 
investment would not only pay dividends to farmers now, but the 
consequent boon to ecosystem services would yield sustained benefits 
for those farmers and adjacent communities in the future.
    The farm bill has tremendous potential to positively influence the 
present and future livelihoods of American farmers and the millions of 
people they feed. The Adirondack Council firmly believes that a renewed 
commitment to the Conservation Stewardship Program is essential to 
realizing our vision of sustainable agriculture, and would effectively 
sow the seeds of a brighter future for not only our farmers, but our 
society as a whole.
            Sincerely,

Brian L. Houseal,
Executive Director,
Adirondack Council.
                                 ______
                                 
                      Comment of Alan W. Houseman
    Date Submitted: Friday, May 18, 2012, 3:30 p.m.
    City, State: Washington, D.C.
    Occupation: Executive Director, Center for Law and Social Policy
    Comment: Dear Representative:

    As Congress works to craft the FY 2013 Agriculture Appropriations 
bill, CLASP, the Center for Law and Social Policy, strongly urges you 
to protect the Supplemental Nutrition Assistance Program (SNAP) and 
other programs that serve vulnerable families, children and the 
elderly. CLASP is a national policy organization that seeks to improve 
the lives of low-income people by developing and advocating for 
Federal, state and local policies to strengthen families and create 
pathways to education and work.
    In these tough economic times when unemployment and underemployment 
rates remain high and families across the country continue to struggle, 
vital nutrition programs have proven to be a lifeline for millions. 
According to a report by the U.S. Department of Agriculture (USDA) 
Economic Research Service released in April 2012, on average, SNAP 
helped 44.7 million individuals monthly with modest food supports 
averaging just $134 in 2011. The findings showed that SNAP has lifted 
millions out of poverty, achieving an annual decline in the nation's 
poverty rate of 4.4 percent between 2000 and 2009. SNAP has effectively 
responded to the needs of low-income families and communities during 
times of economic downturn and increased struggle. Enrollment increases 
when the economy weakens and decreases when the economy recovers. It is 
a program that must be protected and strengthened to serve the needs of 
so many families still facing real hardship across this country.
    One of the cuts that this committee has considered would eliminate 
states' ability to align SNAP's rules with other programs serving low-
income families through ``categorical eligibility.'' Categorical 
eligibility makes it simpler to administer the program, reduces 
administrative costs, and helps ensure that eligible households have 
access to all applicable support programs. Most categorically eligible 
recipients would still qualify for SNAP under the standard rules, but 
would have to struggle through additional red tape to do so. According 
to the Congressional Budget Office, eliminating broad-based categorical 
eligibility would save less than 2 percent of projected spending for 
the program between 2013 and 2022, because most recipients affected by 
it receive a minimal benefit. Increased time to verify information on 
SNAP applications would result in more errors and greater 
administrative costs, further diminishing savings. Categorical 
eligibility must be protected as Congress considers the FY2013 
Agriculture Appropriations bill.
    One of the ways that states have used categorical eligibility is to 
raise the excessively low asset limit that often traps people in 
poverty. According to Federal provisions, SNAP participants are 
disqualified if they have assets above just $2,000. This very low asset 
limit discourages low-income families from saving for emergencies and 
building assets and it prevents families from escaping poverty. It also 
disqualifies the long-term unemployed from receiving benefits until 
they have completely exhausted their savings, making it harder for them 
to repair a car, buy an interview suit, or move in pursuit of a new 
job. Congress should consider raising this limit in all states. In 
President Obama's FY 2011 budget, he proposed setting a national asset 
limit floor of $10,000 for SNAP and other programs serving low-income 
families to allow them to accumulate a modest amount of savings and 
still qualify for assistance.
    While it is essential that SNAP remain available for those who need 
it, everyone agrees that it would be better for workers to have jobs 
that pay well enough that they no longer need benefits. Therefore, it 
is important to preserve the SNAP Employment and Training program, 
which prepares participants for jobs and ensures access to services for 
a particularly vulnerable group of people. SNAP Employment and Training 
must not be cut, especially in these times when unemployment is still 
high.
    SNAP is particularly important given that millions of people will 
be exhausting their unemployment benefits over the next year due to the 
economy's slow recovery. For a significant share of recipients, SNAP is 
truly all that stands between them and destitution and is one of the 
few resources available to them. In fact, a U.S. Congress Joint 
Economic Committee report revealed that in 2010, more than one in five 
workers unemployed for over 6 months received SNAP benefits.
    SNAP is a vital program to low-income individuals and to our 
recovering economy and it is necessary that we protect and strengthen 
it. Not only does it help individuals make ends meet, but the 
expenditures of SNAP help to boost the economy as low income families 
are able to make purchases in local grocery stores and markets.
    We urge your strong opposition to any harmful attacks at 
restricting or cutting SNAP eligibility or benefits and efforts to 
weaken the responsiveness of the program, and ask that you support SNAP 
and other vital programs that serve low-income families, children and 
the elderly as discussions around the Agriculture Appropriations bill 
moves forward. In addition, we urge your steadfast leadership in 
ensuring adequate funding levels for SNAP to strengthen its reach to 
low-income families, children and the elderly.
            Sincerely,

Alan W. Houseman.
                                 ______
                                 
                       Comment of David Houseman
    Date Submitted: Sunday, May 13, 2012, 4:48 p.m.
    City, State: Grand Ledge, MI
    Occupation: Retired
    Comment: We must have a farm bill that restores economic sense to 
viable family farms and to consumers, while it preserves/enhances our 
natural resources. That means not subsidizing large absentee landowners 
who abuse the land by using great quantities of fossil fuel inputs 
which, over the long term, ruin our soil and water resources and 
contribute to air and water pollution. Farmers and ranchers must use 
Sustainable practices that preserve our precious resources for 
generations to come and make it possible for young people to take over 
as existing farmer and ranch owners grow older.
                                 ______
                                 
                        Comment of Susan Houston
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Nashville, TN
    Occupation: Computer Technician
    Comment: I am deeply concerned with the growing power of corporate 
agribusiness in this country. It is destroying the future of 
independent farming. It is patently obvious that companies like 
Monsanto have no interest in preserving any livelihood but their own, 
and both the integrity of the food they produce and their lobbying in 
Washington is extremely suspect.
    I believe that this is an issue that, in future years, is going to 
prove to be a significant turning point for this country, and I beg 
Congress to Do The Right Thing and help American farmers to survive and 
thrive, as well as ensure the safety and nutrition of the food 
produced.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    This is not the time to be collecting donations from agribusiness; 
please, be on the right side of history instead of thinking about your 
next election, and vote for these measures.
                                 ______
                                 
                        Comment of Tanya Houston
    Date Submitted: Friday, May 18, 2012, 3:01 p.m.
    City, State: Black Diamond, WA
    Occupation: Sales
    Comment: Please listen to the people who are effected by your 
decisions and help the U.S.A. become a healthier nation by focusing on 
healthy food and agriculture. Clean, whole food, clean water and fresh 
air is the foundation. Its time to make that a priority.
    Thank you for attention to this vital matter.

Tanya Houston,
Black Diamond, WA.
                                 ______
                                 
                    Comments of Catherine Houtakker
    Date Submitted: Friday, May 11, 2012, 11:55 a.m.
    City, State: Sinsinawa, WI
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: I am from a farm and suffer from the use of chemicals 
which we were told were safe for humans, the land and animals by the 
chemical companies. I strongly believe organic farming is the safest 
and healthiest way to farm for the good of all. I beg you to support 
organic family farmers and help them to feed our world. Thanks.
    Date Submitted: Friday, May 18, 2012, 3:03 p.m.
    Comment: Organic is the only way to go for the health and welfare 
of the Earth and its inhabitants.
                                 ______
                                 
                         Comment of Kris Hovis
    Date Submitted: Friday, May 18, 2012, 3:11 p.m.
    City, State: Mill Valley, CA
    Occupation: Retail Owner
    Comment: We're all eaters, and therefore, we are all in this 
together. For maximum health and well-being, and to reduce health care 
costs, organic foods are essential. We need an Organic Food Bill!
            Thank you,

Kris Hovis.
                                 ______
                                 
                      Comment of Christine Howard
    Date Submitted: Friday, May 18, 2012, 3:39 p.m.
    City, State: Rockford, IL
    Occupation: Accounting Dept.
    Comment: We need the farmlands of America to be ``healthy'' for 
ourselves, our children, and future generations. Stop! the corruption & 
blatant canoodling with big business. Get some common sense, decency, 
and Backbone and stand up for what is right & good for everyone. Our 
future depends on it.
                                 ______
                                 
                         Comment of Dale Howard
    Date Submitted: Friday, May 18, 2012, 1:13 p.m.
    City, State: Huntington, TX
    Occupation: Retired
    Comment: I want all small farmers to grow & sell their products to 
anyone who wants them. I am against all GMO products & corporate farms. 
The small family farms are the backbone of our country & I think we 
should preserve them.
            Thank you,

Dale Howard.
                                 ______
                                 
                         Comment of Lori Howard
    Date Submitted: Thursday, May 10, 2012, 2:18 p.m.
    City, State: Albuquerque, NM
    Occupation: Retirement Disability
    Comment: I have not yet had to go to the food banks. But I am 
looking in my area. Not only that I am going to apply for food stamps. 
I have not eaten properly for years because I don't have the money to 
buy food to get by. I basically live on cereal beans and Peanut butter 
and jelly. Most of my money goes to insurance, Medicare trying to keep 
up my very old mobile home. I was declared disabled in 2005 and did not 
work as of 2002 doctors orders, I am 47 now. I can't imagine if they 
cut social security and food assistance.
    We Need The Governments Help! Please I want you to Fight To Keep 
Our Agriculture. I, Worked My Rear End Off At Ups Then The Post Office. 
And look at me now.
    It it's not only the seniors but all of the disabled who this is 
going to affect!
    Please! Work For Our State! I Voted For You Before I Would Like To 
Keep It That Way. Please State You Are Fighting For Our Agriculture!
                                 ______
                                 
                       Comment of Mike R. Howard
    Date Submitted: Sunday, May 20, 2012, 11:32 p.m.
    City, State: Owensboro, KY
    Occupation: Retired
    Comment: We need organic farmers for people with allergies. Not all 
people have the same metabolism. Some chemical additives used in 
agriculture get into the food and wreak havoc with their systems. I may 
be an aged (experienced) American, but I vote and put money into the 
economy. I just would rather spend it on food than on medicine.
            Thank you,

Mike R. Howard.
                                 ______
                                 
                        Comment of Vernon Howard
    Date Submitted: Friday, May 18, 2012, 10:57 p.m.
    City, State: Jacksonville, FL
    Occupation: Professional Architect
    Comment: Mr. Crenshaw,

    Please do all you can to turn the health of our nation around, 
there is an epidemic of auto immune disorders due to the destruction of 
our food and water this is being ignored by the nation and big 
businesses. The Earth is waning away, mimicking the morals and 
depravity of man's minds and heart.
    We talk about Greening America with LEED, etc., however not one 
thing is being done to get rid of all the unnatural chemicals and the 
unproven GMO forced techniques we utilize in agriculture. The U.S. is 
allowing the destruction of our planet and this in turn is destroying 
everyone's health.
    Look at your own family, I'm sure you will find at least one family 
member in dire straits. Our health industry is over burdened with this 
epidemic however no one seems to care. Let's just let the big business 
pad their pockets.
    All the Obesity, Celiac, IBS, and myriad of auto immune disorders 
can be traced back to all the toxins we allow in our food and water, I 
personally just turned my heath issues around by drinking and eating 
clean purified water and organic fresh fruits vegetables, however I 
understand if companies like Monsanto, DuPont have their way all of 
this healthy lifestyles will be a thing of the past. We need to turn 
this around and start ``Paying this Forward'' for the livelihood of our 
children's children.
                                 ______
                                 
                         Comment of James Howe
    Date Submitted: Friday, May 18, 2012, 11:11 p.m.
    City, State: Goehner, NE
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Farm policy recently has focused far too much on allowing 
advantages to large corporate agribusinesses, which are as far removed 
from actual agriculture as one can get. The small farm, the family 
farm, organic farms, healthy farm practices that do not rely heavily on 
chemicals or genetically modified crop substances should be the focus. 
Genetically modified foods of all sorts should be scientific 
experiments in the labs only and are not fit to be fed to animals or 
people and should never have been unleashed onto the environment. 
Backing away from and eliminating policies they allow the altered 
organism to be found anywhere in our food supply would be a boon to the 
world at large and especially the people in America. Please focus farm 
policy on independently proven healthy choices (not industry proven), 
on small farms, organic farms and naturally reinvigorated resources. 
Thank you.
                                 ______
                                 
                        Comment of Amanda Howell
    Date Submitted: Friday, May 18, 2012, 1:22 p.m.
    City, State: Los Angeles, CA
    Occupation: Educator
    Comment: Organic, local, sustainably farmed food is a must for this 
country's future. The innumerable environmental and health problems 
caused by the industrial agriculture system are destroying the U.S. and 
our planet.
                                 ______
                                 
                       Comment of Jo Anne Howell
    Date Submitted: Friday, May 18, 2012, 2:18 p.m.
    City, State: Aromas, CA
    Occupation: Librarian
    Comment: When you are writing farm policy, please consider that our 
present farm policy encourages the growing of corn, which encourages 
the use of cheap high fructose corn syrup. The researchers from the 
Department of Psychology and the Princeton Neuroscience Institute just 
reported on two experiments investigating the link between the 
consumption of high-fructose corn syrup and obesity: http://
www.princeton.edu/main/news/archive/S26/91/22K07/*
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
    There seems to be a direct link between high obesity rates and our 
present farm policy. Perhaps we should be looking at alternatives.
    I understand that the Senate Agricultural Committee voted to cut $4 
million from organic research funding and cut funding to support 
Beginning Farmers in half.
    Please consider what you're doing.
    Thank you.
                                 ______
                                 
                         Comment of James Hoyle
    Date Submitted: Friday, May 18, 2012, 4:21 p.m.
    City, State: Mount Vernon, WA
    Occupation: Retail Wine Sales--Small Local Grocery Chain
    Comment: Please support local small farmers, not just ``big corp 
landowner farms'', support origin and content (GMO) labeling, protect 
open pollinated crops and seed savers, rights, spend money for 
agronomic crop diversity as well as minor crop research. Create buffers 
between big ag chemistry inputs and gov't. Decision makers; rethink 
``basically the same as'' when it comes to genetic engineered or 
modified inputs and crops. Thanks for this input opportunity. Make good 
and right things happen for all our futures.
            Sincerely,

Jim H.
                                 ______
                                 
                        Comment of Alleyne Hoyt
    Date Submitted: Saturday, May 19, 2012, 10:00 a.m.
    City, State: Louisville, KY
    Comment: The integrity of our lands is important to me as they 
support our well-being. I want my tax dollars that go towards 
supporting this nation's food producers to be used in ways that protect 
the integrity of those lands & the quality of food they produce.
    In 1985, American taxpayers and farmers entered into a compact to 
provide a safety net for the country's food producers in return for 
protection of critical natural resources. Known as ``conservation 
compliance,'' this policy requires farmers to follow conservation plans 
that limit soil erosion on highly erodible land as well as preventing 
destruction of wetlands and native grasslands. Farmers who willfully 
violate their conservation plans risk losing taxpayer funded benefits.
    Today, this important connection is at risk. Taxpayer-funded 
subsidies for crop insurance are not currently linked to conservation 
compliance as they once were. In the current farm bill debate, Congress 
is considering eliminating Direct Payments, the major subsidy program 
that is linked to conservation compliance, and move some of those funds 
to support increased subsidies for crop insurance, which currently 
lacks compliance requirements. Unless Congress connects crop insurance 
subsidies to conservation compliance, a significant part of farmers' 
incentive to follow conservation plans will disappear this year.
    In order to ensure that the agricultural safety net works in 
harmony with conservation programs and responsible land uses, 
conservation compliance provisions must be strengthened and enforced.
    Thank you.
                                 ______
                                 
                         Comment of Linda Hoyt
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Skowhegan, ME
    Occupation: Respiratory Therapist
    Comment: We have clearly identified pesticide and antibiotic 
plagued agriculture as contributing factors to health issues today. 
Please help promote the Organic Food Movement . . . It may not be what 
big agribusiness wants, but it is what the people want. Thank you.
                                 ______
                                 
                         Comment of Robin Hoyt
    Date Submitted: Saturday, May 19, 2012, 10:42 a.m.
    City, State: Allston, MA
    Occupation: Higher Ed Information Technology
    Comment: I would like a bill that supports farming of food that is 
healthy for us and our children (nutritious and organic) and that is 
sustainable, with attention to conservation.
                                 ______
                                 
                        Comment of Virginia Hoyt
    Date Submitted: Sunday, May 20, 2012, 9:30 a.m.
    City, State: Adair, OK
    Occupation: Retired Small Business
    Comment: What we eat is primary in for the life of this nation. Big 
Ag is interested only in the bottom line and the health of the nation . 
. . both physical and emotional . . . are of no interest. The small 
family farmer is way better able to serve his/her community while 
adding appropriately to the general economy.
                                 ______
                                 
                        Comment of Eric Hubbard
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Port St. Lucie, FL
    Occupation: Commercial Diver
    Comment: In this country we need to make some real changes with 
regards to the growing of food but what types we ingest. GMO foods are 
not a viable source and who knows what the future problems they might 
bring.
                                 ______
                                 
                       Comment of Margot Hubbard
    Date Submitted: Friday, May 18, 2012, 9:07 p.m.
    City, State: Rowle, MA
    Occupation: Gardener
    Comment: I only support organic, local, sustainable agriculture 
whereby animals, plants, and the environment are treated with respect. 
I want this country to support organic agriculture at all levels of 
development. I oppose agriculture at the agribusiness level which has 
no respect for the life and health of the inhabitants of the planet.
                                 ______
                                 
                        Comment of Carolle Huber
    Date Submitted: Friday, May 18, 2012, 9:21 a.m.
    City, State: Morristown, NJ
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: As an organization that runs \1/2\ acre educational garden 
for the Morris School District, I see everyday how important small 
farms are. Our students are in awe of food production, because it is so 
new to them. They did not know where food comes from. Keep it small, 
keep it local. Work for us please.
                                 ______
                                 
                      Comment of Michael S. Hubler
    Date Submitted: Wednesday, May 09, 2012, 1:19 p.m.
    City, State: Melbourne, FL
    Occupation: Executive Director--South Brevard Sharing Center
    Comment: Good afternoon Congressmen,

    As a large food pantry we are still breaking the record we set the 
day before. This has been a continuing trend since 2008. We are still 
seeing 100-200 new families each and every month who are newly 
unemployed. We need all the food can possibly get to meet this ever-
increasing demand.
    We greatly appreciate your efforts, but need you to understand that 
this program is key to feeding the millions of hungry Americans.
    Thanks so much for your kind consideration.
            Sincerely,

Michael S. Hubler,
Executive Director,
South Brevard Sharing Center,
[Redacted],
Melbourne, FL,
[Redacted],
www.mysbsc.org.
                                 ______
                                 
                        Comment of Christie Huck
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Avondale, AZ
    Occupation: Retail Manager
    Comment: At a time when you have the power to make very positive 
and forward thinking policies regarding food and nutrition in America, 
it is essential that you get Big agriculture (especially Monsanto) out 
of your pockets. This isn't about your money, this is about the health 
of the entire world really. This includes you and your family. We need 
laws protecting the small family farms and organic farmers, better 
regulations and auditing of farms and animal welfare and safety, 
transparency in all areas of food safety and stricter penalties for 
violating laws. Stop giving handouts to big Ag and let's get the food 
system in this country turned around. Insurance companies have no 
business in our food. Preventative health through a nutritious diet is 
what is needed to combat the influx of disease and obesity in this 
country, not big Pharma.
    This problem is everyone's and you are not immune from it. It's 
time to put people first and tell corporations to get the hell out of 
our food system.
    I support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Amy Hudson
    Date Submitted: Tuesday, May 08, 2012, 6:03 p.m.
    City, State: Atlanta, GA
    Occupation: Communications Manager
    Comment: Please do not cut SNAP and TEFAP! These programs are 
essential to millions of people--so many are out of work or working 
jobs that don't pay enough for them to purchase food and pay the bills. 
This is essential to those who are truly in need.
                                 ______
                                 
                       Comment of Charles Hudson
    Date Submitted: Saturday, May 19, 2012, 11:56 a.m.
    City, State: Arrowsic, ME
    Occupation: Videographer
    Comment: Corn, soy, and wheat subsidies need to end. These 
subsidies are in large part what is driving the epidemic in obesity, 
diabetes, heart disease, etc. . . . Food production should be driven by 
actual demand.
    Small farms should not be held to the same standard as enormous 
industrial processing facilities. Consumers should have the right and 
opportunity to buy from local farmers that they know, and accept any 
risk themselves, rather than have the government dictate standards 
which are too costly for small farms to implement, thus driving small 
local farms out of business.
    Raw milk should be legal! The Absolute risk from drinking raw milk 
from a local farm is much lower than the risk of eating raw spinach 
from an industrial farm. Why is raw spinach legal and raw milk 
illegal?!
                                 ______
                                 
                       Comment of Michelle Hudson
    Date Submitted: Friday, May 18, 2012, 4:25 p.m.
    City, State: Holly, MI
    Occupation: Art Quilter
    Comment: Please put the organic farmers back to work. Stop the 
ceaseless genetic modification of our food chain. Label all foods that 
contain genetically modified food products and get America back into 
the production of good nutritious fruits and vegetables without the 
toxic chemical spraying that the Monsanto megalith decided ``We'' need. 
Thanks for listening and acting on same.
                                 ______
                                 
                       Comment of Joseph Hufford
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Chico, CA
    Occupation: Musician
    Comment: Please ensure a future that is focused on responsible 
farming, limiting big business (and small farms alike) from abusing the 
financial help and reassurances they receive, conservation of soil and 
limitation of pollutants & the provision of healthy food for our 
citizens (i.e., promote organics, limit the use of chemicals, further 
study any GMO's, etc).
                                 ______
                                 
                    Comment of Athena Huff-Sandstrom
    Date Submitted: Friday, May 11, 2012, 12:07 p.m.
    City, State: Chicago, IL
    Occupation: Bartender/Server
    Comment: The farm bill needs to focus on sustainable agriculture 
that gives more power and control to small farmers and organic farmers, 
and discourages the consolidation of power by ``Big Ag'' companies. A 
secure and diverse food supply will give America an economic and 
environmental boost.
                                 ______
                                 
                     Comment of Kitty Hugenschmidt
    Date Submitted: Friday, May 18, 2012, 8:56 p.m.
    City, State: Colorado Springs, CO
    Occupation: Pet Sitter
    Comment: Our Government's JOB is to serve the People. How are you 
doing that when you approve poisoning the food the People eat? We have 
the right to Life--and Food and Water is the basis of that. Polluted 
Water, GMO's, and Food sprayed with Cancer causing substances does not 
satisfy that requirement. Protect those growing Healthy Food! If you 
were really doing your job this letter would not be necessary!
                                 ______
                                 
                       Comment of Abigail Huggins
    Date Submitted: Friday, May 18, 2012, 11:17 p.m.
    City, State: Wilkesboro, NC
    Occupation: Community Garden Coordinator
    Comment: As a potential farmer, I deeply believe in the 
localization of our agriculture system, training and support for 
beginning farmers, and the implementation of sustainable practices that 
protect our environment and collective health. Agriculture affects 
everyone, everyday. The health of our nation depends on the health of 
our farms. As your constituent, I urge you to join me in supporting the 
following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you in advance for advocating for the aforementioned issues 
which promote jobs, food security, health, and land preservation in 
this great nation we share.
                                 ______
                                 
             Joint Comment of Brother & Sister J.R. Hughes
    Date Submitted: Friday, May 18, 2012, 6:23 p.m.
    City, State: Lebanon, KS
    Occupation: Missionary Evangelist
    Comment: Basically, private citizens and farmers should have the 
right to buy and sell between one another as they please. We do Not 
need to be a nanny state. Things like raw milk and cheese are Not 
harmful, but that is still a moot point. This is the United States of 
America, not Communist China. As a private citizen I have the right to 
eat and drink what I please. Get the government Out of my kitchen and 
pantry!
                                 ______
                                 
                          Comment of Loma Huh
    Date Submitted: Friday, May 18, 2012, 11:49 p.m.
    City, State: Viroqua, WI
    Occupation: Editor
    Comment: Do everything possible to support organic farming and 
small, local farms. Subsidizing the huge corporate farms encourages the 
use of drugs and chemicals and results in unhealthy food, and therefore 
unhealthy citizens. We should be wise stewards of the Earth, not 
abusers of it. Please wake up and recognize what's best for life and 
for all living forms, and stop being so concerned about keeping 
corporate pockets full of money.
                                 ______
                                 
                         Comment of Gerrit Huig
    Date Submitted: Friday, May 18, 2012, 1:15 p.m.
    City, State: Goshen, IN
    Occupation: Retired
    Comment: It seems normal and desirable to me that laws governing 
food production are based on health (inspection and organic standards), 
support for local and small producers (they Are America!), ecological 
impact (toxins, transportation, pollution), choice for those who care 
about their health and choice (labeling) and education (Americans need 
to know more about the food they eat), rather than on profits for a few 
oversized businesses, who spend their dubious profits on lobbyists and 
donations.
                                 ______
                                 
                       Comment of Joshua Huisenga
    Date Submitted: Friday, May 18, 2012, 4:03 p.m.
    City, State: Seattle, WA
    Occupation: Graphic Designer
    Comment: The farm bill should support working family farms over 
agribusiness, should support healthy practices over harmful pesticides 
and fertilizers, and should put Monsanto out of business.
                                 ______
                                 
                        Comment of Gene Huismam
    Date Submitted: Saturday, May 19, 2012, 8:42 a.m.
    City, State: Sioux Center, IA
    Occupation: Retired Farmer
    Comment: I would like the congress to regulate farmers to use less 
chemicals on their land. Please allow small farmers to sell 
unpasteurized milk.
            Thanks,

Gene No
                                 ______
                                 
                         Comment of Ned Hulbert
    Date Submitted: Friday, May 18, 2012, 5:44 p.m.
    City, State: Harrisville, NH
    Occupation: Education and Business Consultant
    Comment: Dear Sir and/or Madam

    Our government needs to support programs that emphasize producing, 
distributing and eating--much more widely--food with vitality (i.e., 
organically grown food--not chemically grown food with little or no 
nutritional value). I hope that you will also support with practical 
initiatives those who are growing sustainable food on small privately 
owned farms, not more giant mono-cultured agribusiness farms.
    We need to spread more private ownership, not more giant, owned by 
the few, corporate farms. This supports local communities and spreads 
the wealth and prosperity to more.
    Organic food is ultimately what we all need to eat to stay healthy. 
We need to educate people to the fact that our science proves its 
nutritional value and our taste buds and bodily health confirm it as 
well.
    Agri-biz grown food does not create healthy human bodies or healthy 
animals or healthy land--on the contrary it slowly poisons human bodies 
and farm-scapes and water systems. Likewise animals become less healthy 
and the drugs they are given create human and animal immunity problems.
    The devastation the agri-biz companies are spreading is a proven 
fact and I hope you'll stand up to the corp lobbyists who do not want 
the truth told about what constitutes healthy food, healthy growing 
conditions, healthy people and sustainable farms.
    Thank you for considering these thoughts.

Ned Hulbert.
                                 ______
                                 
                         Comment of Lisa Hulett
    Date Submitted: Saturday, May 19, 2012, 3:47 p.m.
    City, State: Arnold, MO
    Occupation: Retired
    Comment: Support organic farming, the small farmer, don't let 
Monsanto become a monopoly. Ban any more GMO's, at least require 
labeling. Support sustainable farming practices, ban the overuse of 
chemicals, in both fertilizer and as bug control.
                                 ______
                                 
                         Comment of Robbin Huls
    Date Submitted: Friday, May 18, 2012, 1:54 p.m.
    City, State: Ottawa, IL
    Occupation: Software Engineer/Part Time Home-Farmer
    Comment: I have recently moved back to Illinois and am appalled by 
the amount of corn/beans farmland and the overabundance of chemicals 
required to keep them growing in the depleted soil. Having spent time 
learning about organic and sustainable farming, I have to say ``this 
ain't it''. Please do not limit reforms and leave the same system (that 
continues to fail us!) in place! Help sustainable farmers bring back 
the beautiful and fertile farms that don't poison us to feed big 
corporations' bottom lines.
                                 ______
                                 
                         Comment of Dean Hulse
    Date Submitted: Friday, May 18, 2012, 10:51 a.m.
    City, State: Fargo, ND
    Occupation: Owner of Farmland
    Comment: Please make sure the next farm bill does the following:

    1. Eliminates funds to Concentrated Animal Feeding Operations 
        (CAFOs) for animal waste management infrastructure. Make these 
        corporate operations pay for the pollution each causes. No more 
        taxpayer-subsidized externalities.

    2. Protects the Conservation Stewardship Program (CSP) from 
        disproportionate cuts.
                                 ______
                                 
                       Comment of Karen Hultgren
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Simi Valley, CA
    Occupation: Technical Manager
    Comment: I strongly urge you to support and protect local/small 
organic farmers who produce humanely raised livestock and non-GMO 
plants (vegs/fruit/herbs). I only purchase organic food. I do not want 
my food full of pesticides, hormones, antibiotics or stuff created in 
labs. I don't want the meat/eggs/poultry I buy to come from tortured 
animals pumped full of chemicals and not allowed to graze outside 
eating as they are meant to. We should be supporting and protecting the 
food God has provided us. It's perfectly made for the human body and we 
should be doing all we can to protect it. We should also be protecting 
farmers and farm workers to be sure they are working/living in a 
nontoxic environment, which growing organically ensures. We all know 
large factory farms take short cuts to make profits. They are 
compromising our health by adding all kinds of chemicals to livestock 
or grow genetically modified plants where no testing has been done to 
see if it's fit for human consumption. Look around you and see how it's 
affected Americans! People are over-weight and getting sicker! It's not 
working! Our top soil is dying because the chemicals sprayed on them 
kills the beneficial organisms. It's insane! We are slowing killing 
ourselves and compromising the future of the human race. Protecting the 
*health of people* is more important than making money. Let the 
chemical companies make money elsewhere and stay out of our food!
                                 ______
                                 
                       Comment of Judith Humburg
    Date Submitted: Friday, May 18, 2012, 2:29 p.m.
    City, State: Menlo Park, CA
    Occupation: Market Research and Oral Historian
    Comment: For too long, our farm bill has supported practices and 
policies that have created a very unhealthy food system in the U.S. Now 
is the time to shift support to organic, sustainable farming practices 
and policies that encourage and support smaller, family farming 
operations.
                                 ______
                                 
                      Comment of Matthew Humphrey
    Date Submitted: Friday, May 11, 2012, 10:34 a.m.
    City, State: Baltimore, MD
    Occupation: Librarian
    Comment: We need a farm bill that supports sustainable, innovative, 
ecologically friendly family farms, not gigantic, industrialized, 
polluting agribusiness operations. I want an America where small 
farmers can thrive by providing healthy, organic, locally grown food to 
consumers at a price that is competitive with the pesticide-, chemical- 
and hormone-laden products from distant factory farms which have no 
interest in the wellbeing of consumers.
                                 ______
                                 
                        Comment of Kim Humphreys
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Amherst, NH
    Occupation: Doctoral Student/Teacher
    Comment: Agribusiness and its unhealthy practices are making the 
people of this country sick. I support organic farmers and local 
farmers who are providing a healthy option for consumers. Stop 
supporting unhealthy, unconscious farming that harms our children and 
the land!
                                 ______
                                 
                      Comment of Roberta Humphreys
    Date Submitted: Saturday, May 19, 2012, 11:05 p.m.
    City, State: Topeka, KS
    Occupation: Administrative Specialist
    Comment: We want you to put the health of people and our 
environment before Big Corporations. I am tired of tax dollars 
subsidizing GMO Corn, etc and antibiotic research for CAFO's.
    We want nutritious food not the junk that is making Americans sick 
and destroying the environment. The water, the land, the bees, etc. I 
am in support of Organic Farming that puts out more crops per acre and 
better all around for everyone. I am appalled at the Monsanto bullying 
other Farmers. I am not happy with conflict of interest at the Top of 
the FDA or the USDA not having power to shut down CAFO's with multiple 
health violations some resulting in death yet harassment over small 
farmers over raw milk and sheep that have no health violations or 
deaths. Something has gone terribly wrong in our system and needs to be 
made right again. Please do the right thing--we pay you to serve the 
people not BIG Corporations.
                                 ______
                                 
                        Comment of Sally Hundley
    Date Submitted: Friday, May 18, 2012, 6:59 p.m.
    City, State: Park Forest, IL
    Occupation: Secretary
    Comment: Current agricultural law supports large producers at the 
expense of farmers working to expand organic options and sustainable 
practices. Everyone benefits from healthier food options for all and 
from farming practices that are designed for the long haul and not just 
for short-term profits for large corporations.
                                 ______
                                 
                          Comment of Joni Hunt
    Date Submitted: Thursday, May 17, 2012, 4:12 p.m.
    City, State: Stuart, VA
    Occupation: Director, Patrick Co. Community Food Bank
    Comment: We need to do all we can to end hunger in our country, to 
take care of the elderly and children should not go to bed hungry. 
Support our local farmers encourage the growing of organic food not 
adding harmful hormones. There is more than just the ``almighty buck.''
                                 ______
                                 
                         Comment of Amy Hunter
    Date Submitted: Friday, May 18, 2012, 1:29 p.m.
    City, State: Staples, MN
    Occupation: Director of Local Chamber
    Comment: I am a consumer who wants a safe and healthy food source 
free of GMO's. We need to stop subsidizing bad farming techniques and 
help farmers grow healthy foods. It Can And Must Be Done!
                                 ______
                                 
                         Comment of Gene Hunter
    Date Submitted: Saturday, May 19, 2012, 11:08 p.m.
    City, State: Easton, PA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Support small CSA type operations; Withdraw support from 
huge agribusiness and anyone using GMO crops. Encourage new farmers!
                                 ______
                                 
                     Comment of Barbara Huntington
    Date Submitted: Saturday, May 19, 2012, 12:41 a.m.
    City, State: Chula Vista, CA
    Occupation: Premedical Advisor
    Comment: I am very concerned about the use of pesticides and 
genetically modified food. These should all be labeled. I go out of my 
way to be sure I have organic, non genetically modified food and I want 
to be sure there is a high standard. I also want to know that there are 
no hormones or antibiotics in milk or egg products.
                                 ______
                                 
                        Comment of Lindsey Hurd
    Date Submitted: Tuesday, April 10, 2012, 5:43 p.m.
    City, State: Fuquay Varina, NC
    Occupation: Dietetic Intern
    Comment: Dear Congressman Price,

    As a future Registered Dietitian, it is my passion to see families 
grow into healthful citizens of the United States. In making this a 
reality, programs such as SNAP, a major component of the farm bill, are 
a necessary entity. Although SNAP consumes the largest portion of the 
farm bill funds, it offers families with low incomes, the ability to 
purchase and consume healthful foods that might have been to expensive 
to purchase on their own. Although the benefit outweighs the cost, 
purchasing healthy foods such as fresh fruits and vegetables may be out 
of reach for families living on very little income. Through your 
support, children across America are able to consume enough food to 
avoid being hungry in the day. They are able to learn and think better 
in school, in turn scoring higher grades and becoming a contributing 
member to society. It is a proven fact that SNAP families eat more 
healthfully than families without this service.
    As a citizen of the U.S., and member of the nutrition community, I 
understand the cost constraints this program has placed on the farm 
bill spending. Through the increased participation of 26 million in 
2007 to more than 44 million in 2011, SNAP families have cost the 
country $69 billion in the fiscal year of 2011. As a future Registered 
Dietitian, my job will be to work toward preventing disease for 
families, avoiding the need for high priced medical care for illnesses 
and conditions that could have been prevented through a healthful diet. 
The top 3 causes of death in the United States are caused by nutrition 
related diseases. This provides evidence that although SNAP contributes 
to a large cost deficit, in the end it is beneficial for the individual 
and for the U.S. alike.
    I hope that this information will motivate your team to continue 
supporting SNAP services in future farm policies, ultimately supporting 
low income families across the country. Thank you for your time and 
attention.
                                 ______
                                 
                        Comment of Brion Hurley
    Date Submitted: Thursday, May 17, 2012, 9:29 p.m.
    City, State: Iowa City, IA
    Occupation: Engineer
    Comment: I support the elimination of direct payments, and 
replacing them with crop insurance subsidies, but we need to make sure 
the previous conservation compliance is a requirement to receive the 
crop insurance, in order to protect our water and land for future 
generations.
                                 ______
                                 
                        Comment of Pauline Hurst
    Date Submitted: Wednesday, May 09, 2012, 5:00 p.m.
    City, State: Lake Charles, LA
    Occupation: Administrative Asst. for Relief Center
    Comment: Please do not cut any funds or programs that involve our 
Seniors. It is such a challenge for them now to make ends meet. They 
should not have to decide between medicine and food. Most of these 
individuals have worked hard all of their lives and to be put in this 
type of situation does not speak well of our country. We are a wealthy 
nation.
                                 ______
                                 
                         Comment of Lisa Huston
    Date Submitted: Friday, May 18, 2012, 1:50 p.m.
    City, State: Husum, WA
    Occupation: Analyst
    Comment: Please support agricultural reform that focuses on 
sustainability and healthy food. Support organic and local food systems 
and smaller family farms.
                                 ______
                                 
                      Comment of Julie Hutchinson
    Date Submitted: Sunday, May 20, 2012, 8:44 a.m.
    City, State: Encinitas, CA
    Occupation: Pharmacist
    Comment: I endorse Slow Food's stand 100%. Family farming is an 
indelible part of America's heritage and should be preserved and kept 
alive, not relegated to a museum exhibit.
                                 ______
                                 
                       Comment of Amber Hutchison
    Date Submitted: Friday, May 18, 2012, 2:47 p.m.
    City, State: Springfield, MO
    Occupation: Server
    Comment: They're are so many ways to grow crops organically, as 
many organic farmers have shown. Let's get back to a simpler way of 
farming and eating. Why so many chemicals? Genetically modified corn is 
killing our bees, do you have any idea what this could mean for the 
future of All agriculture?
                                 ______
                                 
                       Comment of Leah Hutchison
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: Aliso Viejo, CA
    Occupation: Nanny
    Comment: Our food is killing us, why we as a people have to fight 
for healthy safe food is Ridiculous. I am sick of money over people. 
You should be ashamed of yourselves. I know I'm ashamed of you.
                                 ______
                                 
                      Comment of Paul Hwoschinsky
    Date Submitted: Saturday, May 19, 2012, 6:12 p.m.
    City, State: Ashland, OR
    Occupation: Retired Investor
    Comment: We MUST label all GMO inputs on food. We must protect 
Organic as a label free of food grown without chemical fertilizer or 
GMO inputs so the consumers have a choice. This is a core choice in our 
democracy.
                                 ______
                                 
                        Comment of Laura Hybner
    Date Submitted: Friday, May 18, 2012, 2:15 p.m.
    City, State: Austin, TX
    Occupation: Manager
    Comment: We'd like for our food to be free of chemicals if there 
are chemicals we'd like to be able to view an ingredient label. This 
would be great to mandate restaurants to do this and if any restaurants 
decide not to provide the info they should be fined a large amount of 
money.
    We love our food from our local farmers and we hope that you would 
too join us in support of them.
                                 ______
                                 
                        Comment of Jennifer Hyde
    Date Submitted: Sunday, May 20, 2012, 1:28 p.m.
    City, State: Richmond, CA
    Occupation: Research Administrator
    Comment: The government needs to invest in organic farmers (and 
research) and beginning farmers, and not subsidize GMO corn and soy 
production. The overproduction of corn which is used for livestock feed 
and high fructose corn syrup, contributes to the cheapness of unhealthy 
fattening food compared to healthy vegetables and fruit. Our priorities 
should be the health of our citizens.
                                 ______
                                 
                       Comment of Margaret Hyland
    Date Submitted: Wednesday, May 09, 2012, 5:09 p.m.
    City, State: Louisville, KY
    Occupation: Retired
    Comment: Dear Agriculture Committee Members:

    I am writing to urge you to pass a strong farm bill that protects 
programs like SNAP, TEFAP, and CSFP, which help provide food for 
millions of America's most vulnerable seniors. I have volunteered in 
the St. Vincent de Paul organization and have visited homes that have 
no food. Hunger is real in this country as well as abroad. Have you 
been hungry lately? What would it feel like if you had no way to get 
food for yourself or your family? I don't like being hungry. I don't 
like others to go hungry. Please do not cut these basic programs. Thank 
you.
                                 ______
                                 
                      Comment of Monica Ianarelli
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Pittsburgh, PA
    Occupation: Teacher
    Comment: Sustainable agriculture is the future of a healthy 
country. Chemicals, allowing GMO seed to mix with pure seed and cutting 
funding for health programs Before cutting massive farm subsidies is 
not the right direction in which we should be heading.
                                 ______
                                 
                        Comment of Joan Iatrides
    Date Submitted: Thursday, May 10, 2012, 5:08 p.m.
    City, State: Brookfield, IL
    Occupation: Retired Marketing at Credit Unions
    Comment: I'm sending this e-mail to ask Congress to not reduce food 
benefits to the most needy.
    I volunteer at a food pantry and can personally attest to the need 
of our clients. The clients are most grateful for any food they receive 
and will not take what is not needed. They thank us for our help and 
want to get back on their feet, so they too can volunteer at the food 
pantry.
                                 ______
                                 
                         Comment of Henry Ickes
    Date Submitted: Friday, May 18, 2012, 9:20 p.m.
    City, State: Arlington, VA
    Occupation: Retired Communications Worker
    Comment: There is no place in my view for weakening or otherwise 
interfering with the USDA's responsibility for maintaining oversight of 
agriculture in the U.S., and thus assuring that we have a reliable 
supply of wholesome food. This is, in fact, a matter of life and death 
for so many of us. The next farm bill must be as strong as possible, no 
matter what big-agribusiness says. I frankly don't trust them!
                                 ______
                                 
                        Comment of Janet Ievins
    Date Submitted: Friday, May 18, 2012, 2:56 p.m.
    City, State: Medford, OR
    Occupation: Retired
    Comment: We drive back and forth across the country every year. 
Many places have happy livestock out grazing. Many others have confined 
livestock which operations are smelled long before they are sighted. 
Not only do I feel sad for the animals, I do not want my food coming 
from such polluted environs. Either the stock is filled w/antibiotics 
or ill--or both. Not good for our food supply.
    Similarly, when our policies subsidize huge crop production rather 
than diversified smaller farms, we are going against nature. For the 
sake of profit, we are gambling on the safety of our crops. For 
instance, the miles and miles of all one crop, all genetically 
identical, could be wiped out by a disease or pest. This doesn't happen 
on diversified acreage.
    It is time to subsidize local farms and to stop subsidizing 
Agribusiness. Diversified farms are sustainable. Consumers can buy 
fresher food directly, energy use goes down, chemical use goes down, 
the land can be allowed to rejuvenate, and threat of crop failure is 
lessened.
    Many farm families are willing to work hard against all odds, want 
to continue farming thru the generations. It is a good idea to allow 
these folks to work on behalf of all of us--just let's stack some of 
the odds in their favor for a change.
                                 ______
                                 
                     Comment of Katie Ifert-Miller
    Date Submitted: Saturday, May 19, 2012, 11:31 a.m.
    City, State: Ridgefield, CT
    Occupation: Laborer
    Comment: Naturally grown foods are the only possibility this world 
has and robbing those who practice this noble endeavor is detrimental 
to any chance at a healthy life. We need to support them.
                                 ______
                                 
                        Comment of Mary Ann Ihm
    Date Submitted: Sunday, May 20, 2012, 6:23 p.m.
    City, State: West Bend, WI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Please make mandatory funding for: Conservation Programs, 
Beginning Farmers (including the dis-advantaged, women, urban 
agriculture), Rural Development, Local Farm, Food and Credit, Research 
Programs on publicly funded seeds, Commodity Reform so that recipients 
must be directly involved with farming, not just an owner, Farm to 
School Programs.
                                 ______
                                 
                         Comment of Glen Ihrig
    Date Submitted: Friday, May 18, 2012, 9:53 p.m.
    City, State: Burbank CA
    Occupation: Software Developer
    Comment: I am very upset that the farm bill has become yet another 
vehicle for corporate welfare and subsidy of the SAD (Standard American 
Diet).
    Until now, farm bill subsidies have drastically reduced the number 
small farmers, while expanding the control of a few mega-corporations 
over our food supply. This trend is not sustainable!
    Tax payer dollars must be spent to support and encourage healthier, 
smaller, local agriculture.
                                 ______
                                 
                         Comment of Lucy Ijams
    Date Submitted: Sunday, May 20, 2012, 6:57 p.m.
    City, State: Utica, NY
    Occupation: Ordained Clergy
    Comment: End subsidies to Big Ag, which includes companies that 
create GMOs, keep the SNAP program, support small family farms and 
people who grow fruits and vegetables organically, encourage 
conservation of nutrient rich soil and water by encouraging 
biodiversity rather than monoculture, discourage use of pesticides and 
herbicides which are causing honeybee colony collapse, and no subsidies 
to factory farming of meat animals which creates huge problems for 
manure storage and inhumane conditions requiring the use of antibiotics 
and stop encouraging the use of growth hormones. Encourage local food 
production and consumption rather than transporting foods for thousands 
of miles.
                                 ______
                                 
                       Comment of Kate Ingersoll
    Date Submitted: Thursday, April 26, 2012, 11:01 a.m.
    City, State: St. Mary's City, MD
    Occupation: Archaeologist
    Comment: Please think long and hard about pesticides, American 
diets, children, and the future of our health. Only you can do the 
right thing, we--the voting public--can guide you, but we have given 
you the power to protect our health.
            Sincerely,

Kate Ingersoll.
                                 ______
                                 
                        Comment of Laura Inglima
    Date Submitted: Friday, May 18, 2012, 6:11 p.m.
    City, State: Homer, AK
    Occupation: School Kitchen Manager
    Comment: I consider myself a producer, but on a small scale family 
garden level. Local, organic food production is Very Important to me. I 
want the very best circumstances, conditions and requirements for All 
farmers and gardeners to practice sustainable gardening and farming 
that nurtures and builds the soil rather than poisoning it and 
depleting it.
    I also Strongly Support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you for following up on these very important measures.

Laura Inglima.
                                 ______
                                 
                      Comment of Claudia Ingraham
    Date Submitted: Saturday, May 19, 2012, 7:37 p.m.
    City, State: Denver, CO
    Occupation: Interior Designer, Yoga Instructor, Sound Healer, 
Landlord, Nanny, Jewelry Designer
    Comment: I strongly support organic farming. I try not to buy 
conventional vegetables and I am vegetarian. We need to support local 
farming which is healthier and not subsidize any GMO crops which have 
not been thoroughly tested in the U.S. In Europe they are banned. I 
support labeling of all GM ingredients in food.
                                 ______
                                 
                        Comment of Martha Ingram
    Date Submitted: Friday, May 18, 2012, 10:27 a.m.
    City, State: Brevard, NC
    Occupation: Naturopathic Doctor
    Comment: Please support organic and sustainable agriculture! The 
health of our nation and our planet are at stake. We are at a critical 
juncture and need to start making positive change. Subsidies to factory 
farms create an unfair playing field for organic farmers to compete in 
the marketplace.
                                 ______
                                 
                        Comment of Mrill Ingram
    Date Submitted: Friday, May 11, 2012, 11:54 a.m.
    City, State: Madison, WI
    Occupation: Social Scientist
    Comment: I would like to see the farm bill oriented to build 
diverse and flexible regional food systems. The farm bill should 
support policies that will enable small scale producers to compete and 
to make a sustainable living from offering care-fully grown food 
produced in ways that are humane and ecologically and socially sound. I 
would like to see food safety policies that respect local diversity and 
difference by putting enough well-trained, local inspectors on the 
ground. I would like to see support for urban agriculture and community 
supported agriculture as well as for natural resources stewardship in 
agriculture.
                                 ______
                                 
                       Comments of Sharon Intilli
    Date Submitted: Monday, May 14, 2012 5:09 p.m.
    City, State: Warwick, NY
    Occupation: Associate Director--Television Network
    Comment: The 2012 farm bill needs to reflect what consumers today 
are demanding: Healthy food, not corporate sponsored profit driven dead 
and processed food! For that reason alone, the farm bill should include 
protection of our natural resources--which insures healthy quality 
grown food and Non-GMO seeds which protect our heirloom species--and it 
should add funding to the Organic Research Fund as that is what creates 
More Small Farmers Which Is A Heck Of A Lot Better For Local 
Communities As Well As For Our Environment. Please support what is 
HEALTHY and not what is healthy for one's re-election campaign. We all 
live in the same world and we all need healthy food and a healthy 
environment in which to grow it!
    Date Submitted: Sunday, May 20, 2012, 5:07 p.m.
    Comment: Please do as consumers desire: More organic, less 
industrial farming! Protect organic, independent, Non-GMO farming 
practices because That Will Protect Our Environment--Which Is What 
Ultimately Protects Us!
                                 ______
                                 
                        Comment of Kenneth Irish
    Date Submitted: Thursday, April 12, 2012, 4:59 p.m.
    City, State: Duvall, WA
    Occupation: Designer
    Comment: Current economic theory references three bottom lines to 
assess and track value. Our farm bill needs to address all three. We 
have failed in the past by thinking that easily quantifiable dollars 
represent the only bottom line. That's just the easy one. Please be 
complete in your assessment of costs and benefits as you formulate the 
farm bill. Don't do the simplistic calculations, but listen to your 
children and the health of your community to help you compute the real 
costs and the real benefits of a particular proposal.
    Greater diversity within farming will bring health and strength in 
the same way that greater diversity through our long history of 
immigration has brought us great strength even though we have resisted 
the increased diversity at every turn. We are a nation made strong by 
the individual proclivities of the many, not by uniformity ruled by the 
few.
    We count on you to not only refrain from playing politics with our 
health and future, but to legislate with wisdom, insight and foresight.
                                 ______
                                 
             Joint Comment of Edie Irons and Elanne Kresser
    Date Submitted: Friday, May 18, 2012, 3:05 p.m.
    Names: Edie Irons and Elanne Kresser
    City, State: Oakland, CA; Berkeley, CA.
    Occupations: Outreach Coordinator for Local Gov't Agency; Stay-at-
Home Mom.
    Comment: Please strengthen and protect programs in the farm bill 
that support nutrition, education, small farms, and organic and 
sustainable agriculture.
    I also believe it is time to phase out support for factory farming 
and CAFOs, and commodity monocrops like corn and soybeans. These 
activities are run by huge, profitable corporations, and should not be 
so heavily subsidized by the Federal government.
    Please use farm bill dollars to support agricultural practices that 
create living wage jobs, healthy food, animal welfare, and diverse 
thriving ecosystems.
                                 ______
                                 
                       Comment of Jeffrey Irvine
    Date Submitted: Friday, May 18, 2012, 2:35 p.m.
    City, State: Romney, WV
    Occupation: Retired Educator
    Comment: Please don't weaken the country's ability to enjoy safe, 
organic food stuffs and the small farmer's ability to prosper as good 
stewards of their land. Agribusiness has far too strong a voice in 
vital healthy foods decisions.
                                 ______
                                 
                         Comment of Laura Isely
    Date Submitted: Sunday, May 20, 2012, 8:00 a.m.
    City, State: Staten Island, NY
    Occupation: Chef/Unemployed
    Comment: I currently receive food stamps, while not much, every 
little bit helps. Please do not cut this program. There are way more 
poor people than not.
                                 ______
                                 
                       Comment of Michael Isensee
    Date Submitted: Friday, May 18, 2012, 11:59 p.m.
    City, State: Ferndale, WA
    Occupation: Dairy Nutrient Inspector
    Comment: I have seen the power of a variety of farm bill programs 
to help producers farm smarter and in ways that work with natural 
systems. Enhance conservation, organic, and programs that directly link 
producers with consumers in the most direct way possible. When 
consumers know their farmers, farmers are better able to earn a living 
without government programs and are willing to meet the stewardship 
expectations of the vast majority of people who now live in urban 
areas.
                                 ______
                                 
                        Comment of Antonio Isse
    Date Submitted: Friday, May 18, 2012, 1:21 p.m.
    City, State: Fort Lauderdale, FL
    Occupation: Internet Consultant
    Comment: It's time to back the people, not huge corporations. I am 
ashamed that I've allowed my tax dollars to subsidize corn to provide 
cheap feed for meat companies. I refuse to let that happen anymore. 
There is no reason that organic broccoli is $3 a pound except for this 
subsidizing of monocultures. Stop subsidizing big ag!
                                 ______
                                 
                         Comment of Carlo Iyog
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: San Francisco, CA
    Comment: It is very important that we make this change now. There 
is no excuse for under nourishing and overfeeding our children at the 
same time with hormone and pesticide-treated rubbish.
                                 ______
                                 
                       Comment of Celia Izaguirre
    Date Submitted: Sunday, May 20, 2012, 7:50 p.m.
    City, State: Miami, FL
    Occupation: Student
    Comment: Please support a farm bill that supports an agriculture 
that will help with our current crisis of global warming. We need to 
give incentives to farmers to be take care of the valuable resources we 
have (healthy soil, clean water) that are dwindling down and will only 
continue to do so if no action is taken now. your decision will affect 
every human being not only in our country but in our planet. The time 
is now, tomorrow might be too late.
                                 ______
                                 
                        Comment of Allison Jack
    Date Submitted: Saturday, May 19, 2012, 7:06 p.m.
    City, State: Ithaca, NY
    Occupation: Agricultural Scientist
    Comment: I've seen firsthand how organic farming has revitalized 
the economy in Tompkins County. Many of my friends are running 
successful small and medium scale organic farms and/or organic food 
processing businesses in the area. My husband has worked as a laborer 
on many of these farms. I've also seen the importance of research in 
the creation of this economic opportunity.
    My research centers around vermin-composted dairy manure, which 
allows a waste product from NY's thriving dairy industry to be sold 
off-farm as an organic nutrient source for greenhouse crops. Since this 
is a new material for organic farmers, it took state (NYFVI, NYSTAR), 
Federal (USDA SBIR) and non-profit (OFRF, OCIA) research support to 
figure out the best ways to use vermin-composted dairy manure in 
organic production systems.
    Our industry collaborators have built a $4.5 M facility in 
Livingston County and ship product all over the country. I feel this is 
a successful example of green rural development but it relies on mostly 
organic farms as customers and research funds targeted towards organic 
materials to fully understand the potential uses of vermin-compost. 
This is just one of many examples of researchers working with creative 
businesspeople and growers to build a sustainable regional food system. 
Organic farming is and can continue to be a huge part of rural economic 
green development in the U.S., but only if it is fully supported in the 
farm bill.

        http://innovationtrail.org/post/worm-power-high-tech-composting
        http://www.css.cornell.edu/cwmi/vermicompost.htm *
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.

---------------------------------------------------------------------------
    Please support organic agriculture in the farm bill:

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Program.
                                 ______
                                 
                         Comment of Amy Jackson
    Date Submitted: Friday, May 18, 2012, 11:27 a.m.
    City, State: Fort Worth, TX
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: We need whole food and should provide subsidies to those 
that produce clean, whole food and not Agri-Products that are unhealthy 
and unsustainable. I spend my free time practicing, teaching and 
supporting Urban Agriculture to Be the Change I want to see in the 
world and teach others to Start where you are!
                                 ______
                                 
                       Comment of Barbara Jackson
    Date Submitted: Friday, May 18, 2012, 10:50 a.m.
    City, State: Pocatello, ID
    Occupation: Retired
    Comment: The health of our nation (which is currently Unhealthy) 
depends on the small farmer who cares about producing clean, healthy 
food, as opposed to corporate farms who drench produce in pesticides 
and herbicides. These chemicals have not been sufficiently tested 
(thanks to corporate blocking) for the health damage these chemicals do 
to the human body (especially babies & children--your grandchildren and 
mine) and to the health of the ground this produce is grown in. Large 
corporate farms are killing us, Mr. Simpson!
                                 ______
                                 
                        Comment of David Jackson
    Date Submitted: Sunday, May 20, 2012, 10:16 p.m.
    City, State: Newport News, VA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Sirs,

    Within the next year, my wife and I will be starting up own 
sustainable/organic farm business. As a beginning farmer, I'd like to 
share my support for programs that help new growers build strong farm 
businesses. It's absolutely critical that farm bill programs help 
citizens get started in this challenging field. I ask that the 
Committee endorse all of the provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill. If it was for programs like the Beginning 
Farmer and Rancher Development Program, ATTRA, AND SARE . . . I likely 
wouldn't even consider getting into farming. To me, there's no more 
noble cause to support than to help the people that feed us. To me, we 
shouldn't even have to think about this.
            Sincerely,

David Jackson.
                                 ______
                                 
                        Comment of Kent Jackson
    Date Submitted: Monday, March 19, 2012, 6:29 p.m.
    City, State: Hereford, TX
    Occupation: Banker
    Comment: The name should be changed from ``farm bill'' to the 
``Food and Fiber Bill'' to more clearly convey its ultimate purpose; 
and it should be promoted to the public as a system that provides 
modest support for the most efficient, Stable, and economical 
production of food and fiber in the world.
                                 ______
                                 
                        Comment of Lisa Jackson
    Date Submitted: Friday, May 18, 2012, 11:10 p.m.
    City, State: Loveland, CO
    Occupation: Retired
    Comment: Please! The U.S. food and agricultural policy must focus 
on adopting best agricultural practices that put the health of its 
citizens, the land and the livelihood of farmers and farm workers over 
the interests of industrial agriculture lobbyists.
    I would also like to advocate that funding Not be cut for 
conservation or for organic and sustainable agriculture.

  <bullet> I support: The full endorsement of all provisions of the 
        Local Foods, Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Allowing big agribusiness profits at the expense of the smaller 
guys including those who need nutritious food is downright wrong. 
Listen to your heart. Wouldn't you want your family to have clean, 
healthy, nutritious food grown without pesticides?
            Sincerely,

Lisa Jackson.
                                 ______
                                 
                       Comment of Martha Jackson
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Spring, TX
    Occupation: Retired
    Comment: It is the right of every person on Earth to have healthy 
food to eat. Those who are elected to office as leaders have a 
responsibility to make sure that our food source is not contaminated by 
things that will make people sick or worse.
    Small farmers have been the backbone of this country for years and 
now there seems to be a movement by large food companies to destroy 
both the farmers and the food source for the people of America. GMO are 
mutated foods and have not been tested to see what harm they will 
cause.
    It is time for our Government to stop siding with the big 
Corporations and get back to protecting the people who put them in 
office.
    We want to know what is in our food and who is producing it. I 
trust the small farmers. I do not trust companies who are only looking 
to make money.
    These unhealthy foods will get into Your families food too.
    Protect the organic farmers and our food.
                                 ______
                                 
                       Comment of Maureen Jackson
    Date Submitted: Friday, May 18, 2012, 11:02 p.m.
    City, State: Summerfield, FL
    Occupation: LPN
    Comment: We have the right to know our food, to eat real food, 
healthy food. We have the right to feed our children wholesome, 
nutritious food. We want organic food grown in our fields. We are a 
democracy aren't we?
                                 ______
                                 
                       Comment of Deborah Jacobs
    Date Submitted: Sunday, May 20, 2012, 10:52 p.m.
    City, State: Cottage Grove, WI
    Occupation: Supervisor
    Comment: Please consider taking a look at how the farm bill 
promotes the production of unhealthy foods in a monoculture by big ag 
and ignores the small family farms who are trying to make ends meet 
growing healthy foods. If we are going to supplement farmers income, 
lets send those checks to farmers who are farming sustainable, healthy 
products which will also keep prices down so everyone can enjoy healthy 
foods. If everyone could eat right, we might not have a health care 
crisis.
    Thank you.
                                 ______
                                 
                       Comment of Deborah Jacobs
    Date Submitted: Friday, May 18, 2012, 11:11 a.m.
    City, State: Nisswa, MN
    Occupation: Retired
    Comment: Please think of this as a bill about the future of food in 
America, and about food independence. Not as another occasion to 
subsidize big growers.
                                 ______
                                 
                     Comment of Elizabeth Jacobson
    Date Submitted: Friday, May 18, 2012, 1:08 a.m.
    City, State: Mt. Hood, OR
    Producer/Non-producer: Producer
    Type: Fruits
    Size: 50-150 acres
    Comment: My husband and I have been orchardists for 30 years on a 
century old farm. We were the first certified organic orchard in our 
area, and are the largest Biodynamic orchard in the U.S. We are 
considered a small family farm and make our living solely on our farm, 
and we are becoming a rare breed. Because we are specialty crop 
growers, we get no crop subsidies to help us survive. We are, however, 
enrolled in the CSP program, which is very beneficial for both the 
farmer and the environment. We have also participated in several EQUIP 
programs that have helped us update our irrigation system. The 
following are essential to the new farm bill:

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Progm.

    Thank you for your consideration.

Elizabeth Jacobson,
Mt. Hood Organic Farms.
                                 ______
                                 
                      Comment of Michael Jacobson
    Date Submitted: Friday, May 18, 2012, 4:05 p.m.
    City, State: Fort Wayne, IN
    Occupation: Executive
    Comment: My concern is that foods be properly labeled from 
production through blending as an ingredient or delivered as produce. 
GMO enhanced food should be identified as a way of protecting those 
that are concerned about them. Organic foods should be truly organic 
without GMO or chemical pesticide.
                                 ______
                                 
                       Comment of Sarah Jacobson
    Date Submitted: Friday, May 18, 2012, 3:36 p.m.
    City, State: Hartford, CT
    Occupation: Nonprofit Worker
    Comment: SNAP is a vital program to SO many people and it would do 
NO ONE any good to cut the funding. Food is a basic human right and as 
the government of this country and of these people who are living with 
hunger and food insecurity, you should be taking every possible step to 
help alleviate hunger from every man, women and child in America. This 
will not be accomplished by cutting SNAP funding. I have seen first-
hand the benefit and the good that the SNAP programs do. It is a crime 
to cut funding and marginalize the hungry. Keep SNAP funding, if 
anything, increase SNAP funding!
                                 ______
                                 
                      Comment of Shirley Jacobson
    Date Submitted: Friday, May 18, 2012, 11:57 p.m.
    City, State: Bellingham, WA
    Occupation: Retired Registered Nurse, USPHS
    Comment: Our food system is killing us and will eventually lead to 
the end of our species. The problem is it is not focused on food that 
contributes to the health of people, animals or the planet. End 
industrial agriculture and support small local farms. We have made an 
excellent start here in Bellingham, WA. I buy all my meat and seafood 
from local farmers and fishers. Most of the year I get produce locally 
as well from small, organic farms. Having a direct relationship with 
the producers helps me know my food is safe. I shudder at what I see 
when I walk through a common grocery store but many people are not able 
to do this because they rely on cheap food, which is only cheap because 
the government is subsidizing it production. End that please.
                                 ______
                                 
                         Comment of Ben Jacoby
    Date Submitted: Friday, May 18, 2012, 10:24 p.m.
    City, State: Bethesda, MD
    Occupation: Bicycle Mechanic
    Comment: Food is the most important factor in any society. Healthy 
food, a wide variety of fruits and vegetables, should be available to 
all people in our nation. Local and organic agriculture are very 
important for the efficiency of our food system. Businesses should be a 
moderate size and the control of the food market should be greatly 
distributed throughout many businesses opposed to few. Just some 
thoughts. Thanks.
                                 ______
                                 
                        Comment of Brian Jaeger
    Date Submitted: Friday, May 18, 2012, 10:17 p.m.
    City, State: Laurence Harbor, NJ
    Occupation: Retired School Counselor
    Comment: I value the importance of real food, locally grown, non-
GMO, pasture raised, Not Big Ag And Their Industrial Food Mentality. 
It's just not healthy. Please help by supporting the farm bill.
                                 ______
                                 
                        Comment of Kaitlin Jaffe
    Date Submitted: Friday, May 18, 2012, 2:33 p.m.
    City, State: Berkeley, CA
    Occupation: Environmental Policy Student
    Comment: Please stop farm subsidies to large commercial farms. They 
are destroying farm land with monocultures, helping to support an 
unsustainable animal agriculture process, and increasing the 
availability of cheap, unhealthy foods. Instead spend that money on 
small and middle sized farms producing a variety of fruits and 
vegetables.
                                 ______
                                 
                       Comment of Carol Jagiello
    Date Submitted: Friday, May 11, 2012, 10:34 a.m.
    City, State: Bloomingdale, NJ
    Occupation: Disabled
    Comment: I want to see a farm bill equitable to those who really 
need support. Small farmers, new farmers, conservation programs.
    Subsidies should not be for huge producers. Subsidies should be for 
those who truly need them. Fruit and vegetable growers, school access 
and inner city. Conservation and organics. Stop supporting the ideas 
that make food less safe like radiation.
    Stop funding usable acreage to grow corn for fuel. The farm bill 
should be for everyone not just a few who play the biotech game.
                                 ______
                                 
                        Comment of Susan Jaillet
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Mount Dora, FL
    Occupation: Retired Teacher, Writer, Editor
    Comment: Giant corporations should not be allowed to control our 
food sources or the quality of our food. My family heritage is farming 
and more and more I find myself returning to those roots. More and more 
Americans are and will be growing their own food.
    Corporations are not individuals, nor should they be treated like 
individuals. They are business entities created to protect their owners 
and to generate a profit.
    It's time for America to return to our basic values--the right to 
earn a decent living, the right to eat healthy food, the right to 
pursue our individuals goals without interference from corrupt 
politicians.
    Please support the basic rights of all American citizens--men, 
women and children--over the rights of large multi-national 
corporations.
                                 ______
                                 
                       Comment of Susan Jamerson
    Date Submitted: Friday, May 18, 2012, 2:50 p.m.
    City, State: Missoula, MT
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Big Ag does not need subsidies or subsidized crop 
insurance. Small farmers and new farmers need the help and education to 
go sustainable. More American's are hungry than since the bread lines 
of the depression--how could you possibly cut food stamp money? Are you 
Out Of Your Minds!
    Support local, organic, small farms = good food, healthy people, 
more jobs, less fuel for transport--it's so simple--Why Don't You 
Politicians Get This!
                                 ______
                                 
                        Comment of Lauren James
    Date Submitted: Friday, May 18, 2012, 1:31 p.m.
    City, State: Jackson, WY
    Occupation: Server at an Organic Restaurant
    Comment: Agribusiness-people need to start focusing more on the 
welfare of Americans instead of the welfare of their wallets! Obesity 
and weigh-related disease is growing at an alarming rate. The first 
step in combating this issue is to start regulating the food industry 
better and educating the American people. It does nothing but hurt us 
when Big Ag spends millions on misleading advertising that only helps 
their bottom-line.
                                 ______
                                 
                         Comment of Lynda James
    Date Submitted: Wednesday, May 16, 2012, 1:03 p.m.
    City, State: Bailey, CO
    Occupation: Journalist
    Comment: I support a farm bill that

    1. Creates jobs and spurs economic growth--support programs like 
        the Value Added Producer Grants Program by guaranteeing $30 
        million of mandatory funding per year. VAPG provides seed money 
        to help farmers innovate in agriculture and create jobs while 
        securing a sustainable path to market-based farm profitability.

    2. Makes healthy food widely available to all Americans--including 
        schoolchildren! We must provide flexibility for states to use 
        existing food procurement programs to purchase fresh, healthy 
        food from local farmers and ranchers.

    3. Protects our natural resources--improves the Conservation 
        Stewardship Program by ranking applications solely on their 
        conservation benefits. Farmers count on CSP and other 
        conservation programs to conserve soil for future generations, 
        keep water and air clean, and create habitat for wildlife all 
        while farming profitably.

    4. Guarantees $25 million per year in mandatory funding for the 
        Beginning Farmer and Rancher Development Program. We need a 
        national strategy and commitment to support beginning farmer 
        and ranchers entering agriculture. With an aging farm 
        population, now is the time to invest in the future of American 
        agriculture by nurturing new agriculture start-ups.

    5. Funds the Organic Agriculture Research and Extension Initiative 
        at $30 million per year in mandatory funding. Investment in 
        agricultural research is vital to continued productivity and 
        innovation in growing and diverse sectors of American 
        agriculture, such as organic agriculture.

    6. Discourages genetically engineered food supplies including 
        pesticide and herbicide resistant engineered plants.
                                 ______
                                 
                         Comment of Stacy James
    Date Submitted: Monday, March 26, 2012, 3:56 p.m.
    City, State: Champaign, IL
    Occupation: Water Resources Scientist
    Comment: Since their enactment in 1985, the Conservation Compliance 
provisions of the farm bill have led to substantial reductions in soil 
erosion and wetland loss. Society has benefited from these provisions 
in the form of cleaner water, greater flood control, less dredging, and 
healthier farmland. Compliance has made an impact because hundreds of 
thousands of American farms are subject to its common sense 
requirements in exchange for receiving certain USDA benefits. However, 
there is a significant gap in the program, namely the absence of 
Federal crop insurance from the list of benefit programs linked to 
Compliance. With the looming departure of direct payments--which are 
linked to Compliance--now is the time to restore the link between 
Compliance and crop insurance. Otherwise, up to approximately 200 
million cropland acres will not fall under Compliance and wetland and 
soil loss will likely increase in the face of high crop prices and 
tenant farming. Compliance needs to stay strong and far-reaching 
because agriculture remains one of the nation's top sources of water 
pollution. Sedimentation/siltation and nutrient pollution degrade 
thousands of stream miles and lake acres, and the larger society is 
paying for this pollution in the form of lost recreational 
opportunities, less flood storage capacity, and higher water treatment 
costs. Taxpayers fund the many benefit programs farmers receive. In 
return for this investment, farmers should be providing environmental 
benefits, not externalized costs. By linking crop insurance to 
Conservation Compliance in the next farm bill, the House Committee on 
Agriculture can maintain and enhance this mutually beneficial social 
contract and protect our common, shared resources for generations to 
come.
                                 ______
                                 
                Comments of Abigail ``Abbe'' James-Cupp
    Date Submitted: Saturday, May 19, 2012 2:11 a.m.
    City, State: Gardner, KS
    Occupation: Student Ambassador/Events Coordinator at JCCC
    Comment: While I am sure there are many, complex sides to these 
issues; I urge you, as a representative of the people, to consider the 
repercussions of such serious cuts in the areas where we need the most 
growth as a nation. I am speaking on behalf of my people when I say 
that we do not, in fact, need more corporate agribusiness turning a 
profit at the expense of our nation's health. To remove funding from 
these beneficial programs in favor of such questionable alternatives 
leaves me questioning what other hands are at play in these changes? As 
a representative of the voice of the people, I ask you to truly 
consider the gravity of the weighty decisions yet before you. You hold 
the future of accessible, quality, cost effective nutrition in your 
hands, I would be saddened and disappointed to see such lofty 
responsibilities taken for granted.
    We are waiting in anxious anticipation of the upcoming decisions 
and pray that our confidence in appointing you as our representative in 
office was not a sad mistake in need of remedying.
            Thank you for your time,

Abigail James-Cupp
                                 ______
                                 
                       Comment of Danette Jammer
    Date Submitted: Friday, May 18, 2012, 10:49 p.m.
    City, State: Yarely, PA
    Occupation: Co-Owner of 2 Companies
    Comment: Please vote down any bills that have to do with killing 
any and all natural, healthy farms, health food stores, scientific 
studies (that prove raw milk and organic foods are healthy for all of 
us) and keep fluoride out of our water. We are what we eat and drink. 
Yet the government allows alcohol, cigarettes and GMO in our lives. We 
already know Monsanto is hurting us with GMO foods. We can live without 
the government getting into every aspect of our lives. We were doing 
just fine without the government deciding what is good or bad for us. 
Now it's the natural food that are under attack. Enough is Enough. We 
have to eat healthy to survive. Our bodies want healthy foods. Please 
stop any and all bills that are shortening our lives. Cancer is up 
because the food we eat is creating it. Please stop these bills now.
                                 ______
                                 
                        Comment of Murray Jankus
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Morrisville, PA
    Comment: The more we simplify things, on both the supply side and 
the demand side, the less stable and sustainable our systems of 
production and market become.
                                 ______
                                 
                        Comment of Jon Janowski
    Date Submitted: Thursday, March 22, 2012, 3:40 p.m.
    City, State: Milwaukee, WI
    Occupation: Nutrition Program Advocate
    Comment: I am writing to ask Congress to protect and strengthen the 
Supplemental Nutrition Assistance Program (SNAP) and other Federal food 
assistance programs in the next farm bill.
    For over forty years the SNAP has ensured that the poorest and 
hungriest people in our nation can put food on the table. The SNAP is 
this country's first line of defense against hunger. The program helps 
over 46 million Americans put food on the table each month, including 
over 831,000 people in our home state of Wisconsin.
    The SNAP has a number of strengths, including:

  <bullet> It responds quickly and effectively to economic downturns 
        and increases in unemployment.

  <bullet> Its benefits are spent quickly--97 percent of benefits are 
        redeemed by the end of the month of issuance.

  <bullet> The program is efficient and well-managed. SNAP's current 
        accuracy rate of 96% is an all-time high.

  <bullet> Its benefits go to the neediest and most vulnerable people--
        84% of all benefits go to households with a child, senior, or 
        disabled person.

  <bullet> The program benefits local economies. Moody's Analytics and 
        USDA estimate that the economic growth impact of SNAP ranges 
        from $1.73 to $1.79 per $1 of SNAP benefits.

    As a food bank in Milwaukee, we do our best to ensure that people 
who need emergency food get help today. We also work hard to advertise 
the SNAP and help people apply for and retain benefits. As an 
organization with over 30 years of experience working with SNAP 
applicants and beneficiaries, we ask Congress to invest in the SNAP in 
the next farm bill. In particular, we ask that Congress:

  <bullet> Increase the minimum SNAP benefit to $25 per month so that 
        households receive at least an amount equivalent to base values 
        set in the 1970's

  <bullet> Extend SNAP to needy people currently excluded from 
        benefits, including restoring eligibility to all legal 
        immigrants and removing time limits on receipt of SNAP by 
        jobless adults seeking employment

  <bullet> Allow states to operate the SSI CAP model that seamlessly 
        enrolls SSI recipients into SNAP

  <bullet> Provide adequate resources to states and community partners 
        for administration of SNAP and education, outreach and 
        nutrition education projects

  <bullet> Oppose any proposal to block grant SNAP, cap its funding, 
        impose restrictive eligibility requirements or otherwise 
        diminish benefits or limit participation

  <bullet> Oppose any proposal that would limit states' ability to 
        coordinate the Low-Income Home Energy Assistance Program 
        (LIHEAP) and SNAP benefits

    The farm bill must also invest in government commodity programs 
like The Emergency Food and Assistance Program (TEFAP) and Commodity 
Supplemental Food Program (CSFP) that fight hunger. As a food bank that 
operates both programs in Milwaukee County (Wisconsin), we see the 
impact of these programs every day. Almost \3/4\ of the food we now 
distribute to our food pantries, soup kitchens, and elderly feeding 
sites comes from TEFAP and CSFP. These programs allow us to serve over 
35,000 people per month in our food pantry network and over 61,000 hot 
meals each month within our soup kitchens. In particular, we ask that 
Congress:

  <bullet> Make mandatory funding for TEFAP food more responsive to 
        changes in need by providing a ``trigger'' that ties funding to 
        unemployment levels.

  <bullet> Enhance the Secretary of Agriculture's authority to purchase 
        bonus commodities in times of high need for emergency food as 
        well as in times of low commodity prices so the program is 
        responsive to excess supply and excess demand

  <bullet> Provide TEFAP storage and distribution funding of at least 
        $50 million annually

  <bullet> Expand CSFP to all 50 states and ensure that adequate 
        funding exists for all states operating the program.

  <bullet> Transition CSFP to a seniors-only program by phasing out 
        eligibility of women, infants and children while grandfathering 
        in current participants

    Finally, we ask that Congress invest in the Senior Farmers Market 
Nutrition Program (SFMNP) within the farm bill. Hunger Task Force has 
administered this program in Milwaukee County for 7 years, last year 
distributing over 3,200 vouchers to needy seniors. We are consistently 
disappointed that we are only able to distribute 3,200 vouchers each 
year, despite the fact that we see increasing need among low-income 
seniors. We could easily triple the number of vouchers to low-income 
seniors if more Federal funding were available. We ask Congress to 
provide a mandatory annual amount of at least $25 million through the 
farm bill to address this need in Milwaukee County and throughout the 
U.S.
    Thank you for your attention to these issues and for your efforts 
to invest in Federal nutrition programs.
                                 ______
                                 
                        Comment of Elaine Janson
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Long Beach, CA
    Occupation: Student
    Comment: Food is what powers the people of this country. Without 
clean and organic food, we have no foundation to stand on. In this 
economy, healthy food will make all the difference. The constant need 
for health care will diminish and the overall morale will skyrocket. 
GMOs are not the way of the future, they are the pathway to 
destruction.
                                 ______
                                 
                         Comment of Joan Janus
    Date Submitted: Friday, May 11, 2012, 10:01 p.m.
    City, State: Milwaukee, WI
    Occupation: Educator
    Comment: Healthy, affordable food for everyone is important but 
especially for children. Let's put a provision in the new farm bill 
that will support farmers and ranchers to deliver fresh wholesome food 
to school lunch program. Proper nutrition is important for optimal 
learning. Fresh food from local sources is also a great teaching tool. 
Kids learn to appreciate where food comes from and what it takes to 
produce it.
                                 ______
                                 
                        Comment of Gayle Janzen
    Date Submitted: Friday, May 18, 2012, 6:05 p.m.
    City, State: Seattle, WA
    Occupation: Graphic Design
    Comment: We can't keep doing business as usual when it comes to our 
farming practices. The govt. has got to stop subsidizing the biggest 
farms and factory farms which are destroying the bees and the 
environment with their pollution, chemicals and GMO foods. Organic 
farming needs to subsidize as more and more people are turning to 
organic foods as they don't want to ingest chemicals and GMO products. 
Organic farming is GOOD for the environment and the food is healthy. If 
we only had organic farming, the bees wouldn't be dying. This is a new 
century yet we continue to hold onto the old policies and practices 
that are no longer sustainable and that are now destroying our 
environment. Subsidizing the heavy use of chemicals and pesticides may 
look good short term, but in the long term they are a disaster.
                                 ______
                                 
                       Comment of Michelle Jarvis
    Date Submitted: Friday, May 18, 2012, 3:29 p.m.
    City, State: Hartford, CT
    Occupation: AmeriCorps VISTA
    Comment: SNAP benefits are essential to many peoples lives. Without 
assistance from SNAP, men, women and children WILL go hungry. 
Nonprofits and churches are already stretched too thin, they cannot 
pick up the ridiculous amount of slack that cutting back SNAP will 
leave. Do not cut SNAP benefits! We already have a large amount of 
hunger in the nation, let's try to help this issue, not cause more 
problems. Help feed children, keep SNAP!
                                 ______
                                 
                      Comment of Cathy Jasienowski
    Date Submitted: Saturday, May 19, 2012, 8:53 p.m.
    City, State: Easthampton, MA
    Occupation: Registered Nurse
    Comment: Please help establish laws that promote food equity for 
the people who produce, pick, and process our foods, as well as equity 
for people of all socioeconomic status to procure fresh, local, 
organic, and sustainable food with the resources available to them.
                                 ______
                                 
                          Comment of Raj Jawa
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: Saugus, CA
    Occupation: Business Owner & Filmmaker
    Comment: We must ensure we maintain control; the people must always 
be able to grow their own, the farmers should be able to grow real 
crops with seeds as nature intended, as God intended. Created crops may 
as well be considered processed foods, taking away the heart and soul 
of the vegetables and fruits all in the name of control and money. Let 
the crops solve hunger issues around the globe but allow the self-
reliance and the self-enterprising qualities of consumers thrive; don't 
not neutralize the seeds in an attempt to maintain steady business, let 
us do for ourselves if we will.
                                 ______
                                 
                         Comment of Bonnie Jay
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Santa Monica, CA
    Occupation: Nutritionist
    Comment: Food is life.
    Food tainted with chemicals and designer genes is death.
    Monsanto is beyond evil. Get them out of agriculture.
    Wholesome food, grown organically . . . for everyone.
    No More Modified, Chemical Laden, Poison Laden, Processed Garbage 
Referred To As Food. It Is Not And It Should Not Be Produced Or 
Presented As Food.
    Do something about Monsanto, like put them out of business. They 
are taking small organic farmers to court insinuating that gmo seeds 
were stolen because they blew onto the organic farmers land. This is 
the evil the government now allows. Make it stop.
    We need more organic farms . . . these farmers work very hard to 
bring wholesome food to market and are being thwarted by big agra. Big 
Agra Must Be Stopped. People Have A Right To Choose What They Put 
Inside Their Bodies, Not Have A Company Like Monsanto Dictate And Limit 
Choices.
    Monsanto Is Evil. Put Them Out Of Business. They Are Poisoning Our 
Land, Ground Water And Putting Good People Off Their Land.
    Do Something About It!
    This Is A Matter Of Great Urgency!
    Now!
    Please!
                                 ______
                                 
                         Comment of John Jayne
    Date Submitted: Friday, April 27, 2012, 5:22 p.m.
    City, State: Weston, MA
    Occupation: Unemployed
    Comment: When kids are hungry, they don't do as well in school. 
Then they can't get jobs and can't earn money to support themselves. So 
it's a vicious circle. It's up to us to rescue them from this never-
ending cycle of hunger and poverty.
                                 ______
                                 
                       Comment of Jamie Jeffries
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: Santa Cruz, CA
    Occupation: Chef/Food Writer & Educator
    Comment: Please protect small family farms that produce organic 
foods & products for their communities and neighbors. We need our small 
farms. Please don't cut them out in favor of Big Ag subsidies . . . 
they're so big they don't Need subsidies. Small farms Do!
    Thank you.
                                 ______
                                 
                          Comment of Joy Jena
    Date Submitted: Friday, May 18, 2012, 7:41 p.m.
    City, State: Lawndale, CA
    Occupation: Retired Registered Nurse
    Comment: As the committee considers the 2012 Food and Farm Bill, I 
urge you to consider the following:

  <bullet> Small and medium scale farmers and ranchers Need subsidies 
        Not industrial farmers and ranchers! It is time for an apple 
        and all home grown fruits and vegetables) to be more affordable 
        than a bag of potato chips or a piece of cake. It is time for 
        animals to be fed what their DNA requires important nutrients, 
        now missing in the American diet, will again be provided.

  <bullet> Traditional farm subsidies which support grain fed animals 
        must be stopped and provided to those who wish to make the 
        transition to sustainable extensive farming.

  <bullet> Limits on the production of corn, soy and wheat production 
        must be reinstated. The over production of these products as 
        animal fed, sugar and enriched white flour is now the leading 
        risk factor for chronic preventable diseases.

  <bullet> Nutritional support for school lunches and the SNAP programs 
        must be improved to provide adequate nutrition. Low fat 
        chocolate milk from grain fed cows is not a health food. Whole 
        milk from a grass fed cow is. French fries, potato chips and 
        sugary drinks led the list of foods most eaten by those who are 
        overweight. Please see an example mocking the travesty that 
        begins with a farm bill that does not provide the means to a 
        healthy population (the Bodega food pyramid on you-tube)--this 
        is not an anomaly but rather repeated over and over in poor 
        neighborhoods.

  <bullet> The farm bill must not be passed without strong support for 
        small scale farmers and ranchers, and a healthier school lunch 
        and SNAP program. If more information is required to validate 
        the needs outlined above, the Bill should be postponed until 
        this is done.

    Thank for your attention.
                                 ______
                                 
                        Comment of Nancy Jenkins
    Date Submitted: Saturday, May 19, 2012, 8:16 p.m.
    City, State: Rocksprings, TX
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 1,000+ acres
    Comment: A nation that can feed itself can better defend it own 
autonomy globally. Organic food should be the norm not the exception so 
lower prices which are important for the dignity of the less able 
consumer can to maintain. Chemicals & GMO foods are not the way for 
long-term commodity stability. Their use only limits plant diversity & 
raises prices for everyone.

Nancy Jenkins, Rancher.
                                 ______
                                 
                   Comment of Corliss Jenkins-Sherry
    Date Submitted: Thursday, May 10, 2012, 3:58 p.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: I think it is important that Congress to cut farm 
subsidies to anyone with an average income over $1 million. I would 
like to see the new farm bill increase funding for local sustainable 
food systems, provide assistance to farmers to prevent pesticide and 
fertilizer run off as well as providing funds to study ways to maintain 
healthy production levels while reducing CO<INF>2</INF> output. Lastly 
it is important to make healthy food available to everyone by reducing 
corn and soy subsidies and increasing support for healthy foods such as 
fruits and vegetables.
                                 ______
                                 
                         Comment of Dina Jenney
    Date Submitted: Wednesday, May 16, 2012, 3:55 p.m.
    City, State: Phoenixville, PA
    Occupation: Billing Specialist
    Comment: From 1933 with the passage of the Agricultural Adjustment 
Act, until 2008 when Congress approved the Food, Conservation and 
Energy Act, there have been 15 so-called farm bills. Over these many 
years, the official name of the bill has changed and the scope and 
reach of the legislation has expanded or contracted to reflect national 
needs, economic conditions and the political environment. Every 4 or 5 
years, Congress ``reauthorizes'' the Federal programs affecting food 
and farms. In essence, the farm bill brings most of the critical anti-
hunger programs into existence and dictates how they will operate. 
Among these are the Supplemental Nutrition Assistance Program (SNAP), 
The Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP). These programs comprised only one of 
the 15 sections of the bill, but they accounted for nearly 70% of the 
spending authorized by the 2008 Farm Bill. For those of us focused on 
fighting hunger, no other piece of legislation is more important.
                                 ______
                                 
                      Comment of Barbara Jennings
    Date Submitted: Thursday, May 17, 2012, 10:58 a.m.
    City, State: St. Louis, MO
    Occupation: Administration & Investments
    Comment: Farmers need to be rewarded for good conservation 
practices . . . planting refuges, hedges, winter cover crops, etc.
    Poor soil = extra expense for fertilizer = poor water quality, and 
more nitrates etc. in our streams and rivers.
    Please preserve our land and our water . . . subsidies should go to 
those who do this, not those who waste and ruin.
                                 ______
                                 
                        Comment of Mimi Jennings
    Date Submitted: Thursday, May 17, 2012, 12:38 p.m.
    City, State: St. Paul, MN
    Occupation: Retired Teacher
    Comment: Please consider jobs, healthy food programs, our 
environment and small farms/diversity when you approach the farm bill. 
The pressure on you from large industrial farms with lots of lobbying 
money will be enormous, but (1) they don't need your support, and (2) 
there are other pressures to consider as well. These are: 
sustainability and a robust economy.
                                 ______
                                 
                       Comment of Susan Jennings
    Date Submitted: Friday, May 18, 2012, 10:59 a.m.
    City, State: New York, NY
    Occupation: Artist
    Comment: Organic farming should be subsidized. Antibiotics, 
hormones and most pesticides should not be used in farming in as they 
are endangering the population.
                                 ______
                                 
                         Comment of Erin Jensen
    Date Submitted: Saturday, May 19, 2012, 12:09 a.m.
    City, State: Vancouver, WA
    Occupation: College Admissions Counselor
    Comment: This planet cannot sustain agricultural practices that 
champion the bottom line over ecological common sense. This economy 
cannot sustain food production that subsidizes monocultures and 
encourages food insecurity. Please listen to your constituents and 
stand up for a farm bill that benefits our land and our citizens . . . 
Not big agribusiness.
                                 ______
                                 
                       Comment of Sharlene Jensen
    Date Submitted: Sunday, March 18, 2012, 3:32 p.m.
    City, State: Oldham, SD
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 500-999 acres
    Comment: I would like to see as much done as possible to help and 
encourage farmers & ranchers to reduce their use of chemicals 
(pesticides, fertilizers . . . ), genetically engineered/genetically 
modified seeds, antibiotics, and hormones. I would like to see research 
directed toward non-toxic ways to control weeds and pests. I would like 
to see more incentives for farmers/ranchers to raise organic crops and 
livestock. I believe this is the only way to save what we have left for 
future generations.
                                 ______
                                 
                      Comment of Patricia Jerrells
    Date Submitted: Saturday, May 19, 2012, 12:23 a.m.
    City, State: Shelton, WA
    Occupation: Retired
    Comment: As a consumer of food, I want the best I can find. This 
means local and organic if possible. Small family farms are the ones 
that need help and support. The huge agribusiness farms do not need 
help and should not be paid to produce nothing. The whole business in 
out of sync and unreasonable. This is the time for an overhaul of the 
farm bill to support organic and small family farms that sell locally. 
This will bring local jobs and healthy food to the population.
                                 ______
                                 
                         Comment of Lisa Jervis
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Oakland, CA
    Occupation: Nonprofit Administrator
    Comment: For the health of our country's families, communities, and 
economy, we Need farm bill reform that ends subsidies to large-scale 
monoculture farms whose crops get made into nutrition-free refined 
goods like sodas and chips or animal feed to support cheap fast-food 
meat. As a taxpayer, I want farm supports to go to small producers 
growing fruits, vegetables, eggs, dairy, and meat that go directly to 
people, no complex processing needed. Taking agriculture policy in this 
direction will help make healthy food more affordable and accessible, 
build local economies, increase food security, and increase quality of 
life for small farmers and their customers.
    I also want food safety regulations that have appropriate 
provisions for small producers, without burdening them with over-
regulation designed for huge factory farms. Factory farming is 
inherently less safe, as contamination in one space spreads to food 
meant for vast numbers of people. Small farms and meat processors don't 
need the same level of regulation, and if they have to invest in 
compliance at the same level as huge corporations, we will lose access 
to healthier, higher quality products.
    Thank you for your time and attention.
            Respectfully,

Lisa Jervis.
                                 ______
                                 
                         Comment of Gar Jevitt
    Date Submitted: Friday, May 18, 2012, 4:02 p.m.
    City, State: Tenafly, NJ
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: The total capitalization of organic life is going down a 
Dead end road. Right now capitalism is flat Earth thinking. Do you want 
to be part of the living future or just another jerk paid for 
politician?
                                 ______
                                 
                    Comment of Julia Jiannacopoulos
    Date Submitted: Friday, May 18, 2012, 10:17 p.m.
    City, State: Potage, WI
    Occupation: Education
    Comment: CAFO's are really unacceptable factory farms. They 
pollute, they force their `waste' contracts on all the local farmers, 
they outcompete family farms, they flood the market with cheap, 
antibiotic filled milk and they reduce the water table and the quality 
of life in the communities they are in/near. Milk Source, n/k/a MS 
Holdings, Inc. has a CAFO 1 mile from Grand Marsh Elementary School. 
Talk to the Principal there about how she feels about sending 150 kids 
out to recess with the stench of the farm. Please require environmental 
regulations on CAFOs that will be supported/enforced by our sorely 
understaffed DNR! Thank you for listening.
                                 ______
                                 
                      Comment of Lizzette Jimenez
    Date Submitted: Friday, May 18, 2012, 4:43 p.m.
    City, State: Addison, IL
    Occupation: Manager, Strategic Planning
    Comment: Please do not cut funding for organic farming or to 
beginning farmers. This is truly vital to our future as the current 
``factory farm'' method is just simply not sustainable, less healthy 
and not to mention absolutely deplorable and conditions inhumane. I 
live in a city and go out of my way to work only with local farmers who 
are ethical, do things the right way, and use humane environments like 
allowing their animals to be out on pasture as nature intended.
                                 ______
                                 
                      Comment of Glinda Jimmerson
    Date Submitted: Friday, May 18, 2012, 9:52 p.m.
    City, State: Oceanside, CA
    Occupation: Nurse
    Comment: Please support the farm bill. It is important that we, the 
consumers, taxpayers, and voters are given the choice to have local 
organic farms supported by the government for affordability and health. 
Organic and sustainable farming should be just as if not more 
subsidized than the large agribusinesses who do not care what we think 
or say. We do not want G.M.O. foods patented and blown by nature into 
our local farmer's property so they can sue them in court and shut down 
the competition. We do not want unlabeled G.M.O. products in our 
grocery stores. We would like our public schools to get their food from 
local farmers thereby reducing cost to the public school system and 
making a healthier menu for our kids.
                                 ______
                                 
                    Comment of Donna M. Jitchotvisut
    Date Submitted: Saturday, May 19, 2012, 10:02 a.m.
    City, State: Chicago, IL
    Occupation: Retired
    Comment: The strength of our nation depends on the health, fitness, 
and education of its citizens. We need to ensure that healthy 
affordable food is available to everyone regardless of where they live 
or what their occupation. Big Ag has lost sight of this original 
purpose: producing a food supply that is healthy and affordable and 
available to all of the citizens of this country. Big Ag is more 
concerned with creating wealth for its CEOs and stockholders than 
solving the problem of hunger in this country. In the process of 
maximizing the rate of return on investment for its stockholders, it is 
using chemicals and genetically modified crop seed that are already 
producing nightmarish ``super weeds'', poisoned soil, crop die-offs, 
and illnesses in the humans and animals alike. In short, Big Ag is 
destroying our farm land and making all of us ill with diseases that 
never existed before. We need to return to a time when production 
techniques were based in solid provable science; simple cultivation 
techniques of crop rotation, companion planting, reuse of farm waste as 
natural soil enhancements, and natural pest and weed control provided 
by ``friendly'' insects and animals. If our country is to become 
healthy and strong again, we need to return control of our agricultural 
business to the people who know it best: the small family farmers.
                                 ______
                                 
                      Comment of Donald Johansson
    Date Submitted: Sunday, May 20, 2012, 10:14 p.m.
    City, State: Tobaccoville, NC
    Occupation: Retired Professor
    Comment: Please look into the work done by Henry Wallace when he 
was Sec'y of Agriculture. The subsidies then made sense. We must see 
that the government's participation in agriculture benefits real 
farmers, not Monsanto and friends. Here's where you can really speak 
for American values.
                                 ______
                                 
                         Comment of Ann Johnson
    Date Submitted: Friday, May 18, 2012, 2:50 p.m.
    City, State: Denver, CO
    Occupation: Retired Nurse
    Comment: I grew up on a farm and as far as I can tell farmers never 
get a fair shake. They feed this country with the hard labor of their 
bodies, and they operate huge machinery which can be quite dangerous, 
not to mention the cost of maintenance. So, while we eat food that they 
produce with never a day off, they don't ever get a fair shake. Do the 
right thing and make farming a top-notch priority and think about 
what's on your plate at your next meal, and the next one and the next 
one, ad infinitum.
                                 ______
                                 
                      Comment of Bettemae Johnson
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: Albuquerque, NM
    Occupation: Retired
    Comment: No more subsidies for ``farmers'' making more than $1 
million per annum: only for ``small'' family farmers! Also, additional 
support should be provided for those farmers who practice sustainable 
and organic farming!
                                 ______
                                 
                        Comment of Carol Johnson
    Date Submitted: Friday, May 18, 2012, 1:18 p.m.
    City, State: Deer Park, WI
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: Small farmers have been struggling to keep going. I am a 
small sustainable poultry farmer. I focus on ethical treatment and feed 
organic, even though I am not certified. I honestly don't know if I can 
do it another year. Please stop subsidizing GMO crops that are bad for 
us and our animals and put more resources toward small, sustainable 
farmers so we can produce healthy food for all.
                                 ______
                                 
                        Comment of Chris Johnson
    Date Submitted: Friday, May 18, 2012, 3:47 p.m.
    City, State: Steamboat Springs, CO
    Occupation: Full-Time Mother
    Comment: As a parent, nutrition and organic options are important 
to me. As a resident of the Earth, conservation and sustainable 
agriculture practices are important to me.
                                 ______
                                 
                        Comment of Dean Johnson
    Date Submitted: Saturday, May 19, 2012, 10:57 a.m.
    City, State: Cambridge, MA
    Occupation: Retired Environmental Planner
    Comment: It is time to stop subsidizing giant agribusiness 
companies and focus instead on the health of the American people. We 
need nutrition, conservation and organic produce programs, as well as 
support for the local food movement. Let's end the subsidies to large 
corporations and, instead, focus on the health of our citizens. Thank 
you.
                                 ______
                                 
                      Comment of Elizabeth Johnson
    Date Submitted: Friday, May 18, 2012, 4:21 p.m.
    City, State: Portland, OR
    Occupation: Mother
    Comment: My parents come from a long line of farmers dating back to 
the mid 1800's here in Oregon. My parents are very frustrated when they 
see large developments and shopping malls being built over land the 
know to be very fertile farming land, and then turn around just to see 
large farming corporations like Monsanto that use chemicals, and GMO 
seed on land that is not fit to be farmed. The only way that it is 
possible is with the destructive chemicals that are used on the land. 
The Monsanto company, is one of the most dangerous and evil global 
businesses because it is responsible for poisoning people, wildlife, 
farm animals and the environment at large--in other words Monsanto are 
a deadly threat to life on Earth.
                                 ______
                                 
                       Comment of George Johnson
    Date Submitted: Saturday, May 19, 2012, 12:29 p.m.
    City, State: Laguna Woods, CA
    Occupation: Clergy
    Comment: Follow the movement of Jesus Christ and support efforts to 
help the poor. Don't cut funds for food stamps and small farmers. 
Security of votes sometimes robs one of courage. But not John . . . the 
Baptist or John Campbell.
            Thanks,
George Johnson from Laguna Woods.
                                 ______
                                 
                        Comment of K.L. Johnson
    Date Submitted: Friday, May 18, 2012, 2:05 p.m.
    City, State: Ft. Myers, FL
    Occupation: Retired Agribusiness
    Comment: We must protect our farming families from the chemicals 
that are killing us. Organics = Life! Rather than death from cancer . . 
. babies with autism . . . neurological abnormalities, cardiac 
problems, asthma . . .
    After decades of farming with ``recommended chemicals'', my 
extended family is sick or pre-maturely dead!
                                 ______
                                 
                        Comment of Karl Johnson
    Date Submitted: Friday, May 18, 2012, 12:14 p.m.
    City, State: Monroe, NH
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: Consumer demand for organic produce that comes from 
sustainable, small, family-owned farms is increasing. Consumers are fed 
up with large-scale agribusinesses that mistreat livestock, pollute the 
environment, underpay their workers and deliver unhealthy products. 
It's time for real legislative reform that gives small farmers an 
opportunity to compete and gives consumers the information they need to 
choose their food through truthful labeling.
                                 ______
                                 
                       Comment of Kathryn Johnson
    Date Submitted: Saturday, May 12, 2012, 12:41 p.m.
    City, State: Plano, TX
    Occupation: Student
    Comment: The farm bill needs to prioritize healthy foods for 
growing kids. Obesity is a huge problem in America, yet we have school 
cafeterias stocked with Domino's pizza, pink slime, fries, and Dr. 
Pepper machines. School lunches are an opportunity to provide healthful 
foods to a huge swath of young people who otherwise may not have access 
to it, and we should capitalize on that. We also need programs that 
spread the agricultural wealth, so to speak. People across the country 
face far too many barriers to healthy eating, including cost and 
proximity. I also think that subsidizing the foods that make our 
population heavier and less healthy--the corn that becomes corn syrup, 
for instance--is irresponsible to the point of ridiculousness and 
really needs to be looked at logically.
                                 ______
                                 
                       Comment of Kathyrn Johnson
    Date Submitted: Sunday, May 20, 2012, 2:07 p.m.
    City, State: Minneapolis, MN
    Occupation: Homemaker, Nutrition Educator
    Comment: Make a level playing field so small producers and co-ops 
can get good, safe food to consumers. Agri-industries are not the same 
as small farms--they are inherently more polluting, dangerous and 
wasteful.
                                 ______
                                 
                       Comment of Leslie Johnson
    Date Submitted: Friday, May 18, 2012, 7:52 p.m.
    City, State: Rowland, NC
    Occupation: Registered Nurse/Math Teacher
    Comment: I fully support a farm bill that promotes organic farming 
and sustainable practices. I believe that supporting Big Ag is wrong 
and that GM products are bad for people and the environment. Terribly 
bad. It is way past time to quit allowing corporations to run this 
country for their profit.
                                 ______
                                 
                       Comment of Michael Johnson
    Date Submitted: Saturday, May 19, 2012, 8:07 p.m.
    City, State: West Linn, OR
    Occupation: Health Care Worker
    Comment: Please stop subsidizing commodity crops and support real 
farmers--those that help feed our country. We are a nation in the midst 
of a health emergency caused by obesity, brought on by our government's 
farm bill.
    Let real food be supported the way corn, soy and the rest of Big Ag 
is.
                                 ______
                                 
                       Comment of Michele Johnson
    Date Submitted: Friday, May 18, 2012, 6:47 p.m.
    City, State: Santa Fe, NM
    Occupation: Book Artist
    Comment: It's time to level the playing field in agriculture. For 
too long we have looked the other way while the family farm died a slow 
death and the big agribusiness folks took over. Factory farms that 
raise animals have shown they have a host of problems, including humane 
treatment of animals, questionable feeding practices, use of drugs and 
antibiotics, pollution, and insufficient oversight. Farms raising 
vegetable and grain crops have their own set of issues, including 
indiscriminate overuse of pesticides, herbicides and fertilizers and 
the proliferation of GMOs. The number of sources for food across the 
nation has dwindled to a ``precious few'', yet the problems have 
multiplied. Foodborne illness is at an all time high. Increasingly, we 
know less and less about where our food comes from, how it's produced 
and what's it in. Small farm operations, many of them committed to a 
healthier way of growing and harvesting are under constant threat of 
over-regulation, even extinction, from the policies that favor the 
giants of agribusiness. This has to stop. We deserve, at the very 
least, clean, healthy food, and we deserve to have choices about where 
that food comes from and how it is processed, stored and delivered. 
Personally, I no longer purchase meat or poultry from the standard 
super market, not only because I don't trust it anymore, but because it 
tastes like nothing. Americans have been lulled into a false sense of 
security about their food supply, and in the bargain, have been brain-
washed to accept as ``food'' a whole host of products that are 
nutritionally worthless or even harmful. For starters, the people who 
are trying to resurrect the model of the small, independent farm should 
not only be applauded and encouraged, but regulations should be crafted 
that are favorable to them and not only the big players. It would be 
wise to pay attention to the environmental damage that has been done--
and continues to be done--and take the necessary steps to halt and 
reverse this alarming trend. It would also be wise to take another look 
at the way we subsidize agricultural programs in this country. It 
simply makes no sense any more, given the many changes over the past 
decades. It appears that there is a lot of work to be done. Please put 
the process of future decision-making about all facets of agriculture 
on the ``front burner'' and listen to the ``little folks'' out there, 
not just the special interests of the agribusiness giants.
                                 ______
                                 
                        Comment of Robyn Johnson
    Date Submitted: Sunday, May 20, 2012, 8:34 p.m.
    City, State: Portland, OR
    Occupation: Community Advocacy
    Comment: Partners for a Hunger-Free Oregon (PHFO) commends the 
House of Representatives Committee on Agriculture for this opportunity 
to submit recommendations for the 2012 Farm Bill. PHFO recognizes this 
farm bill reauthorization as a tremendous and critical opportunity to 
strengthen and improve programs and policy that supports our nation's 
farms, farmers and food system. However, as the problem of hunger 
persists in Oregon and nationally, it is of tantamount importance to 
protect, strengthen, and improve the Supplemental Nutrition Assistance 
Program (SNAP), among other Federal nutrition programs, as a means of 
mitigating the tragic affects of hunger on our citizens and in turn, 
our communities. SNAP currently helps feed over 800,000 Oregonians and 
49,000 million people nationally. Serving more people than at any time 
in the program's history, SNAP continues to be our first defense 
against hunger in the United States. As a program, it is working 
exactly as it was designed to combat hunger and malnutrition, and as 
such, should be maintained in its current structure to ensure that our 
citizens are fed and healthy.
    PHFO is a statewide organization with a mission to end hunger 
before it begins by promoting the well-being and economic security of 
Oregonians and eliminating the underlying causes and consequences of 
hunger. We work with stakeholders throughout Oregon to advocate for 
public policy improvements on the local, state and Federal level, raise 
awareness of the extent of hunger and conduct outreach to expand 
participation in Federal nutrition programs. Our efforts are guided by 
a plan with three goals: (1) Increase economic stability for people, 
communities and the state, (2) Cultivate a strong regional food system 
and (3) Improve the food assistance safety net. Strengthening, 
improving and protecting federally funded nutrition programs is 
pursuant to our work on Goal 3 of Oregon's plan. However, we know these 
programs support strategies in all three goal areas. SNAP, The 
Emergency Food Assistance Program, Farmers Market Nutrition Programs, 
the Fresh Fruits and Vegetables Program, together and in conjunction 
with other nutrition programs, help low-income families piece together 
their meals every day and their food budget over the course of a month, 
and allows them to stretch their food dollars and increase their 
ability to afford to pay other basic living expenses. Additionally, 
these programs support local grocers, food distributors, processors, 
farmers, ranchers and dairies. Of equal importance, these programs 
strengthen our regional food system and the jobs that those sectors 
provide.
    PHFO strongly supports the following improvements to nutrition 
programs:
Supplemental Nutrition Assistance Program
    SNAP is the centerpiece of our nutrition safety net in the United 
States. We must ensure that SNAP benefits are sufficient to purchase a 
nutritious diet. In general, we ask that the House Agriculture 
Committee:

  <bullet> Support proposals to increase access to adequate and 
        nutritious food.

  <bullet> Oppose attempts to weaken or restructure these programs that 
        would result in reduced benefits.

  <bullet> Oppose proposals that would cap or reduce funding.

  <bullet> Oppose proposals that restrict or reduce program 
        eligibility, benefits, or food choice.

    Specifically, we suggest the following policy improvements for 
SNAP:

  <bullet> Increase monthly benefit for the Supplemental Nutrition 
        Assistance Program (SNAP) to allow for the purchase of a 
        nutritious diet by moving from the Thrifty Food Plant to the 
        Low-Cost Food Plan.

  <bullet> Make the ARRA funding boost permanent.

  <bullet> Align AmeriCorps VISTA SNAP eligibility with other 
        AmeriCorps programs. Current legislation counts the living 
        expense allowance against eligibility if a VISTA applies for 
        SNAP after becoming a member. This change would align with 
        medical programs, which currently excludes these payments.

  <bullet> Allow college students to qualify for SNAP regardless of 
        their work hours. Let college courses count as work 
        participation, or eliminate the current 20 hour student work 
        requirement.

  <bullet> Expand the minimum benefit to all eligible households. 
        Currently, the $16 per month minimum benefit is allotted only 
        to households with 1 or 2 people.

  <bullet> Fully restore immigrant eligibility. Allow documented adult 
        immigrants eligible based on income; eliminate restrictions 
        including, 5 year work history.

  <bullet> Add incentives for fruit and vegetable purchases in SNAP. 
        Theses dollars will promote and encourage the purchase of a 
        healthy diet.

  <bullet> Remove ``Able Bodied Adults Without Dependants'' (ABAWDS) 
        provision from regulations. Currently, Oregon must seek a 
        waiver each year to be excluded from this requirement, which 
        limits benefits for this population.

  <bullet> Exclude income earned by members age 18 and under if in 
        school at least halftime. Income from children under 18 should 
        not count against household eligibility, and would align with 
        medical and Temporary Assistance for Needy Families 
        requirements.

  <bullet> Increase the Transitional Benefit Alternative eligibility 
        period to 12 months. Current law allows for a 5 month period. 
        Expanding this will allow families leaving TANF for employment 
        to receive a greater opportunity to transition off public 
        benefits; it also aligns with extended medical program 
        benefits.
The Emergency Food Assistance Program (TEFAP)
    At a time of record-level need, we call on the Federal government 
to provide food banks the full assistance available through TEFAP.

  <bullet> Make mandatory funding for TEFAP food more responsive to 
        changes in need by providing a trigger that ties funding to 
        unemployment levels.

  <bullet> Enhance the Secretary of Agriculture's authority to purchase 
        bonus commodities in times of high need for emergency food 
        relief in addition to times of low commodity prices so the 
        program is responsive both to excess supply and excess demand.

  <bullet> Reauthorize funding for TEFAP Storage and Distribution Funds 
        at $100 million per year and TEFAP Infrastructure Grants at $15 
        million per year.
Support Oregon Agriculture
    We support investments in local food production, processing and 
marketing systems.

  <bullet> Increased funding and strengthen programs such as Farmer 
        Market Nutrition Programs, Farmers Market Promotion Program, 
        Fresh Fruits and Vegetables Programs for schools, and Community 
        Food Projects.

  <bullet> Support reforms to Federal farm support programs that create 
        a more level playing field for Oregon's small and medium size 
        farms and ranches to ensure an affordable and healthy food 
        supply, and protect Oregon's natural resources.

    PHFO respectfully asks that this Committee recognize the important 
role that federally funded nutrition programs play in ensuring that 
people access the food they need. While Oregon is one of the leading 
states in nation in terms of SNAP participation, we continue to be 
ranked as a top state for very low food security according to the 
USDA's 2010 report Household Food Security in the United States. While 
the number of our ranking has dropped, the rate at which hunger occurs 
has remained the same. We credit the SNAP program and particularly 
provisions such as Categorical Eligibility and ``Heat and Eat'' as 
instrumental in allowing our state hold the line on hunger. It would be 
devastating to thousands of families in Oregon and other states that 
elect these options to lose them at a time of such great need. We need 
to protect the current structure of this successful program. Cuts to 
SNAP will result in increased hunger, as it will mean less food on the 
table of Oregon's families. We further recognize that despite the 
strength and success of the Oregon Food Bank Network, the charitable 
food sector would not be able to fill in the gaps that cuts to SNAP 
would create.
    PHFO appreciates the opportunity to contribute to this process.

Robyn Johnson,
Community Advocacy Coordinator,
Partners for a Hunger-Free Oregon
[Redacted].
                                 ______
                                 
                         Comment of Ron Johnson
    Date Submitted: Saturday, May 19, 2012, 7:23 p.m.
    City, State: Portland, OR
    Occupation: Energy Consultant
    Comment: The level of hunger in the United States is shameful given 
our country's wealth and resources. We take pride in saying this is a 
country of opportunity for all who are willing to make the effort, yet 
we deny children the food necessary for them to have fair opportunity. 
Please maintain or increase the funding for SNAP and TEFAP so our 
country does not fall further behind in feeding its people.
                                 ______
                                 
                       Comment of Sharon Johnson
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Windsor Heights, IA
    Occupation: Natural Health Coach
    Comment: I shop farmers markets because I want to be healthy, not 
sick. I want to eat locally grown, organic products. I want to eat meat 
coming from animals that have NOT been fed antibiotics, hormones, and 
GMO grains. I want my foods to be labeled non-GMO or GMO.
    The vast majority of the foods we are offered today are full of 
toxic additives, are GMO, and making us sicker, not healthier. If you 
want to curb the runaway costs of healthcare today, then change the way 
our foods are grown, manufactured, and marketed. Put People Before 
Profits Of Big Ag!
                                 ______
                                 
                         Comment of Tim Johnson
    Date Submitted: Friday, May 18, 2012, 2:27 p.m.
    City, State: Corvallis, OR
    Occupation: Admin. & Management for Small Businesses
    Comment: Stop subsidizing big agriculture and rewarding 
agricultural practices that produce poor quality, pesticide laden foods 
while damaging the environment, public health, and future food 
production.
                                 ______
                                 
                        Comment of Bud Johnston
    Date Submitted: Saturday, May 19, 2012, 7:35 a.m.
    City, State: Garretson, SD
    Occupation: Retired
    Comment: If we have a ``Farm'' bill at all, it should be to help 
farms produce people food, not the genetically modified garbage we are 
planting now. No one with a Chicago, or New York, Los Angeles address 
is eligible!
                                 ______
                                 
                        Comment of Rona Johnston
    Date Submitted: Friday, May 18, 2012, 10:13 p.m.
    City, State: Garretson, SD
    Occupation: Artist
    Comment: The farm bill should support locally grown food grown in 
an environmentally responsible way. Foods for families and a healthy 
environment for everyone living in these communities.
                                 ______
                                 
                       Comment of Signa Johnston
    Date Submitted: Sunday, May 06, 2012, 1:29 a.m.
    City, State: Portland, OR
    Occupation: Retired Executive Director, State Program on Aging
    Comment: Please do all in your power to support and defend 
reinstating the funding and the structure of the SNAP (food stamp) 
program. I know personally the safety net this provides for our 
children, elderly, veteran and other disabled plus struggling 
unemployed and low income families.
    The Senate approved farm bill calls for drastic cuts which must not 
become law. How can our nation ever expect to recover from this deep 
recession if so many of its citizens are left to go hungry and 
consequently become ill because of lacking adequate nutrition?
    Thank you for supporting laws that strengthen our nation's 
leadership to feed the hungry, promote conservation, lifts up small 
family farms and helps rural America and thus all America thrive.
    Please continue to oppose the drastic cuts to this vital safety net 
as you did when this formerly was put to a vote in the U.S. House.
            Sincerely yours,

Signa Johnston.
                                 ______
                                 
                      Comment of Veronica Johnston
    Date Submitted: Friday, May 18, 2012, 7:46 p.m.
    City, State: Chicago, IL
    Occupation: Health Research Writer
    Comment: I buy organic food from small-scale Illinois farmers every 
week and would like to see their best interests, which are directly 
connected to our health, looked after. Further, because of the dangers 
of the obesity epidemic to our nation's economy, health and security, I 
would like to see incentives for more farmland to be devoted to growing 
fruits and vegetables.
                                 ______
                                 
                       Comment of Vicki Johnston
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: Evergreen, CO
    Occupation: Healthy Foods Cooking Instructor
    Comment: We would like major emphasis put on bio diverse, organic, 
family-farms. We would like a deemphasis on industrial agriculture and 
corporate livestock production. We want more heirloom species foods, 
more diverse crops like blue potatoes and red carrots. No GMOs! Tax 
credits for going organic and avoiding pesticides please.

Vicki Johnston, MHN,
Evergreen, CO.
                                 ______
                                 
                    Comment of Kathy Johnston-Keane
    Date Submitted: Friday, May 18, 2012, 9:57 p.m.
    City, State: Pittsburgh, PA
    Occupation: Art Historian
    Comment: Farming should contribute to the health of the nation . . 
. healthy crops grown for our consumption . . . and healthy farming 
practices with little negative impact on the environment. I support 
small farms that care about their farmland, their produce, their 
livestock, and the environment. They should be supported. Big 
Agriculture has been helped enough . . . help the little farms thrive.
                                 ______
                                 
                       Comment of Alexander Jones
    Date Submitted: Friday, May 18, 2012, 11:37 p.m.
    City, State: Eugene, OR
    Occupation: Farmer
    Comment: We need to close loops if we want to prevent the plethora 
of problems industrial agriculture and its inputs cause. Dead zones in 
the Gulf of Mexico, Bees dying by the millions, these are just a few of 
the destructive tendencies of industrial ag. The Dust Bowl was caused 
due to poor farming practices, let's not let that happen again!
            Be Well,

Alex.
                                 ______
                                 
                        Comment of Anthony Jones
    Date Submitted: Friday, May 18, 2012, 1:14 p.m.
    City, State: Simpsonville, SC
    Occupation: Semi-Retired
    Comment: I Plead for Reform! Please stand up for all of the 
Americans who struggle with small local farms and gardens. Current 
policy threatens the livelihood and wondrous American heritage 
lifestyle which raises health well adjusted citizens.
                                 ______
                                 
                         Comment of Diane Jones
    Date Submitted: Sunday, May 20, 2012, 11:36 p.m.
    City, State: Fort Myers Beach, FL
    Occupation: Real Estate Broker
    Comment: Dear Representative Mack,

    Please consider the following for the new farm bill. Don't sell out 
to the big factory farms. We'll know who you care about with your vote 
. . . your constituents or big corporations.
    A $36 million cut to SNAP is not the way to go. The Committee 
should focus on writing a farm bill that creates economic opportunity 
and improves access to healthy, affordable food for all Americans.

    1. Community Food Projects Program--$10 million per year to help 
        communities build food self-reliance.

    2. Farmers Market and Local Food Promotion Program--$20 million per 
        year to develop farmers market capacity and create food hubs to 
        connect farmers with schools, hospitals, grocery stores and 
        other markets.

    3. Hunger-Free Community Incentive Grants--An average of $20 
        million per year for a new SNAP local fruit and vegetable 
        incentive grant program at farmers markets and other healthy 
        food retailers.
                                 ______
                                 
                         Comment of Kris Jones
    Date Submitted: Friday, May 18, 2012, 9:57 a.m.
    City, State: Upland, CA
    Occupation: Special Ed. Teacher
    Comment: Family farms are economical, social and spiritually the 
need of the present and the future. Big Ag pollutes and is bad for the 
planet and creates global warming.
                                 ______
                                 
                        Comment of Marilyn Jones
    Date Submitted: Friday, May 18, 2012, 4:46 p.m.
    City, State: San Francisco, CA
    Occupation: Designer
    Comment: If you are truly interested in lowering health costs, you 
would encourage and support industry organic farming. I believe that 
many people my generation are healthy because we were born on the cusp 
of WWII Families across the U.S. who had no background in farming, grew 
as much of their own food as was possible. This happened all across the 
U.S. Why would you let healthy food that is grown organically by small 
farms be destroyed? Is the Committee is made up ``fast food junk 
eaters''? Do they have no concept chemical free food.
    It is a pathetic situation when America's food production relies on 
chemicals and ignores the health factor of its Citizens.
                                 ______
                                 
                Joint Comment of Maxine & Ralph D. Jones
    Date Submitted: Sunday, May 20, 2012, 8:33 p.m.
    City, State: Midland, SD
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 1,000+ acres
    Comment: First, I believe you need to do a serious job of educating 
the public, even including many farmers, on how the farm bill works and 
why it is necessary.
    Too many do not know that the majority of the budget actually 
serves All people needing food assistance, rather than subsidizing 
farmers.
    We livestock producers who don't grow grain crops for sale rarely 
know how crop subsidies work and why they are necessary, if they really 
are.
    Those two items generate a tremendous amount of distrust and 
resentment of those farmers who get ``all that free money'' as I've 
heard it described.
    That said, I do believe cuts should affect All who receive money 
from USDA. I believe cuts should be proportional to need and benefit to 
the environment.
    It appears that conservation will take the hardest hit, and that is 
not right. Many of us who practice good land stewardship have carried 
that load without assistance of any kind until very recently. Since the 
general public wants good stewardship of the land, they should be 
willing to put some of their own `treasure' into assisting those of us 
who do not get real returns from our stewardship costs.
    Currently, some segments of agriculture seem to be doing quite 
well. Speaking as one who produces beef cattle as our only `crop', that 
is deceiving . . . since our costs for absolute necessities for 
production are going up far faster than our income, and the taxes, from 
local to the income tax are going up very fast, too.
    And Death Tax, the most obscene of all taxes, is forcing us to 
spend money better spent to help our young grandsons increase their 
herd numbers so they can become viable ranchers, on even more estate 
planning with every assault on private businesses via that horrible 
tax. Remember the Death Tax has a very high compliance and collections 
cost, too.
    Insurance subsidies for losses of our hay crops in times of drought 
or other weather disasters, and possibly for excessive losses of 
livestock in unusually difficult storms would be a very possible saving 
mechanism for our business some years. It is nearly impossible to 
justify carrying insurance due to high premium costs, however even one 
year of huge losses has come very near to ending our ranching careers 
more than once over the past 55 years we have been in business.
    I believe ethanol has used up more than it's share of subsidies. 
The market place is the proper place for new, non-fossil fuels to grow, 
now.
    Thanks for the opportunity to comment. As the elder of a four 
generation ranch (two generations preceded us), we would prefer no ag 
subsidies, but cannot compete with the subsidized farmers who like to 
raise cattle to clean up their crop residues while we have to purchase 
All our feed, either by owning or leasing land, growing hay and grain, 
etc.

Maxine & Ralph D. Jones,
Midland, SD.
                                 ______
                                 
                       Comment of McKenzie Jones
    Date Submitted: Wednesday, May 16, 2012, 9:32 p.m.
    City, State: Flagstaff, AZ
    Occupation: Community Garden Coordinator
    Comment: Please do not cut funding to SNAP. Please support:
    Community Food Projects Program--$10 million per year to help 
communities build food self-reliance.
    Farmers Market and Local Food Promotion Program--$20 million per 
year to develop farmers market capacity and create food hubs to connect 
farmers with schools, hospitals, grocery stores and other markets.
    Hunger-Free Community Incentive Grants--An average of $20 million 
per year for a new SNAP local fruit and vegetable incentive grant 
program at farmers markets and other healthy food retailers.
    Please increase funding for outreach and technical assistance for 
socially disadvantaged farmers and ranchers.
    Thank you!
                                 ______
                                 
                        Comment of Morgan Jones
    Date Submitted: Saturday, May 19, 2012, 3:48 p.m.
    City, State: Bagdad, KY
    Occupation: Environmental Technologist
    Comment: Don't cut funding for conservation! This is the most 
important function of the farm bill--to ensure our necessary crop 
production causes as little environmental harm as possible! This is the 
kind of governmental function we need More of, not less!
                                 ______
                                 
                         Comment of Nancy Jones
    Date Submitted: Monday, March 19, 2012, 9:28 p.m.
    City, State: Abilene, AR
    Occupation: Retired Educator
    Comment: Please give more information about this bill. How much 
will it cost tax payers? Does it primarily assist small farmers or 
large corporations? How is distribution determined? Thank you for 
helping to inform us.
                                 ______
                                 
                         Comment of Nina Jones
    Date Submitted: Saturday, May 19, 2012, 10:51 p.m.
    City, State: Oakhurst, CA
    Occupation: Delivery
    Comment: Our health and the health of our planet depends on humans 
realizing sustainable farming practices. Huge agribusiness has only 
profit in mind. This needs to change. Please support organic farming in 
any decisions. Many health problems facing our nation could be helped 
by having healthy foods available . . . free of pesticides and 
chemicals.
                                 ______
                                 
                         Comment of Paula Jones
    Date Submitted: Saturday, May 19, 2012, 5:15 p.m.
    City, State: Manhattan Beach, CA
    Occupation: Retired
    Comment: Don't let our U.S. food and agricultural policy continue 
down the unhealthful road it's on. If you truly want to represent the 
people of the U.S., for policy development must focus on adopting best 
agricultural practices that put the health of its citizens, the land 
and the livelihood of farmers and farm workers over the interests of 
industrial agriculture lobbyists. We want sustainable agriculture with 
GMO foods labels so that those of us who do not want to eat GMO foods 
can chose to avoid them. Stop the policies that support the excess 
production of commodity food ingredients that then get dumped on our 
kids in school. Show the world that we are a truly developed nation and 
that we can make tough but intelligent decisions about how to best 
manage our environment, our health and our future through the 
fundamental farm policies that you create.
                                 ______
                                 
                       Comment of Rosemary Jones
    Date Submitted: Sunday, May 20, 2012, 5:03 a.m.
    City, State: Salinas, CA
    Occupation: Educator
    Comment: I am a consumer of farm products and find that I must shop 
with more and more trepidation due to the lack of oversight and 
protections. GMO and a chemical company named Monsanto, known for 
endangering populations for profits, are now growing our foods putting 
real farmers out of work and creating these oversized unwieldy 
industrial farms. Why must be forced to eat whatever they produce, and 
pay for the privilege?
                                 ______
                                 
                      Comment of Karen Jones, R.N.
    Date Submitted: Friday, May 18, 2012, 11:34 p.m.
    City, State: Bethlehem, PA
    Occupation: Community Health Nurse
    Comment: Based on the American Nurses Association code of ethics it 
is my duty to encourage you to support any legislation that would 
protect the health of our communities, and our environment. Please 
create and support a new movement in agriculture that is sustainable, 
local, organic and non GMF based. This is more than a health issue it 
is a matter of national security. Please act rightly.
            Thank you,

Karen Jones, R.N.,
Registered Nurse to MSN Program,
DeSales University.
                                 ______
                                 
                        Comment of Callie Jordan
    Date Submitted: Friday, May 18, 2012, 3:42 p.m.
    City, State: The Dalles, OR
    Occupation: Teacher
    Comment: U.S. food and agricultural policy must focus on adopting 
best agricultural practices that put the health of its citizens, the 
land and the livelihood of farmers and farm workers over the interests 
of industrial agriculture lobbyists.
    Farmers and eaters across the U.S. benefit from a fair and healthy 
farm bill. We need your help today. Right now the House Agricultural 
Committee is accepting public comments on this critical piece of 
legislation.
    There are a lot of bad ideas that Congress is considering, 
including cutting funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Camille Jordan
    Date Submitted: Friday, May 18, 2012, 5:06 p.m.
    City, State: Petaluma, CA
    Occupation: Retired
    Comment: Let's give organic farmers the opportunity to expand & 
thereby lower costs. Many of us do not want to buy either GMO food or 
food contaminated w/ pesticides.
                                 ______
                                 
                         Comment of John Jordan
    Date Submitted: Friday, April 27, 2012, 10:04 a.m.
    City, State: Bend, OR
    Occupation: Home Designer
    Comment: Dear Representative Walden,
    I am writing to voice my concerns about current farming practices 
and subsidies.
    It is imperative that the current system be turned on its head and 
the emphasis be placed on sustaining the local family farm instead of 
the resource guzzling and pollution producing corporate farm industry.
    Subsidies to industrial farms allow unsustainable practices to 
flourish while responsible organic and natural farmers struggle. Let us 
level the playing field and make industrial farms compete with the 
wholesome food producing family owned farms and place foods on the 
shelf that reflect the ``real costs to produce'' their products by 
eliminating subsidies.
    Does this idea not reflect a true free enterprise capital system 
that our GOP representatives preach on a daily basis? Stop socialized 
farming practices. Call it what it is as most consumers are not aware 
how this system works for the wealthy industrial farms and not the 
just, hardworking family farmers that built this country.
    The result of the current subsidies system promotes the production 
of unhealthy, petroleum based pesticide laden foods. Poisonous 
practices and GMO foods will lead to the downfall of our food supply as 
we continue to propagate poor farming practices.
    Make the industrial farms compete on a level playing field and I 
assure you that the quality of food in this country will increase as 
costs decrease. Eliminate subsidies for farms.
            Sincerely,

John Jordan.
                                 ______
                                 
                        Comment of JoLynn Jordan
    Date Submitted: Saturday, May 19, 2012, 5:25 p.m.
    City, State: Oakland, CA
    Occupation: Retired
    Comment: Please help the American people to get safe food, and to 
take care of our precious resources e.g., our soil. Cancer is rampant, 
my son just died from it, we need safe food.
                                 ______
                                 
                       Comment of Melissa Jordan
    Date Submitted: Sunday, May 20, 2012, 11:29 a.m.
    City, State: Morrisville, VT
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: I produce vermicast (earthworms castings) from food 
scraps. I also try to buy locally raised produce and other food stuffs. 
I know an increasing number of people with different types of colitis 
and autoimmune diseases. I can't help but believe that these illnesses, 
and so many others, are due to the poor nutrient levels in foods from a 
chemical agriculture that does nothing to improve the quality of soil 
that food plants are raised in. I focus on producing healthy soil for 
healthy food. Our government should be doing the same, and supporting 
local, certified organic agriculture is the best way possible to 
achieve this goal.
                                 ______
                                 
                       Comment of Michele Jordan
    Date Submitted: Thursday, April 26, 2012, 5:08 p.m.
    City, State: Marion, MD
    Occupation: Unemployed
    Comment: First of all we need to protect our farmers on the shore 
and their right to farm, whether they be raising poultry or farming 
crops . . . They are being demonized for environmental problems when 
the fact is farmers were the ``first environmentalists''.
    Second, I feel that any cuts to the Food Stamp program at this time 
would hurt only those who are struggling the most. The elderly and the 
working poor who are already close to ``making too much'' to qualify 
will be the ones cut off, not the perpetual needy people who have made 
no effort to work despite ability to and have fostered a dependence on 
government aid.
                                 ______
                                 
                       Comment of Patricia Jordan
    Date Submitted: Friday, May 18, 2012, 2:42 p.m.
    City, State: Montgomery, AL
    Occupation: Health Coach
    Comment: The farm bill needs to be for Real Farmers growing Real 
food not large corporations growing Frankenfood and not for land owners 
like your family and my family to be subsidized simply for owning land. 
Those things are welfare fir the rich and are Wrong. Subsidizing those 
entities is shameful and is costing our country vast amounts of money 
beyond the subsidies. The American people are wise to this abuse of tax 
money and want this to stop!
                                 ______
                                 
                      Comment of Stephanie Jordan
    Date Submitted: Friday, May 18, 2012, 6:23 p.m.
    City, State: Benicia, CA
    Occupation: Chef, Caterer, Culinary Faculty
    Comment: It's time for real reform. Please fund vital programs 
including organic and sustainable farming methods, nutrition, and 
conservation. Specifically, I urge you to do the following:

  <bullet> Maintain the EQIP Organic Initiative

  <bullet> Fully endorse all provisions of the Local Foods, Farms and 
        Jobs Act (H.R. 3286).

  <bullet> Fully fund conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

  <bullet> Implement all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

    For 20+ years, my father was a Nebraska farmer of corn, soybeans, 
and at times, popcorn. At age 63, he died of Lymphoma, which was caused 
by farm chemicals. He always wanted to try and grow organically, but 
due to too many pesticides and herbicides in the ground--not to mention 
GMOs (thanks a lot, Monsanto), he never had the chance. There are safe, 
effective ways to grow produce, but it can only happen if organic 
farmers are supported. Now is the time to support these organic 
farmers. As a chef, I work with food and the people who eat it every 
day. I can tell you that consumers across the country are realizing the 
health benefits of eating chemical-free. The demand is there, so please 
get on board to pass an Organic Farm Bill.
    I am also calling on stricter standards for food safety in this 
country. Unfortunately, it seems our government is reactive, and not 
proactive. It seems there always needs to be an outbreak with excessive 
illness and death before anyone pays attention to the disgusting and 
inhumane ways in which animals are raised, and the effects this type of 
farming has on the environment (i.e. runoff into water supplies, 
neighboring farms). Please implement stricter standards that keep 
corporate ag businesses in check.
    Thank you.
                                 ______
                                 
                        Comment of Aaron Joslin
    Date Submitted: Sunday, May 20, 2012, 6:23 p.m.
    City, State: Athens, GA
    Occupation: Graduate Student--Agroforestry
    Comment: The farm bill is a great tool to establish priorities for 
agricultural practices in the U.S. Those priorities should include 
support for organic, family-owned and/or ecologically pro-active 
farmers. Priorities should not include support for practices that 
concentrate more acreage under the control of corporate farming 
interests. Please consider reducing or rejecting subsidies paid for 
crops reliant on GMO technologies and increasing support prices for 
farmers who create diverse ownership and genetic traits within their 
crops.
                                 ______
                                 
                       Comment of Harriet Joslin
    Date Submitted: Saturday, May 19, 2012, 8:57 a.m.
    City, State: Raleigh, NC
    Occupation: Retired/Home Gardener
    Comment: As a lifetime backyard gardener, I know the work it takes 
to grow fresh, wholesome vegetables. I value locally grown produce and 
try to support local farmers as much as possible. But I know the way of 
life as a small farmer who sells locally is disappearing because the 
odds are stacked against them. I am appalled at the crazy laws that 
support unsustainable, unhealthy, environmentally destructive 
agribusiness and can't figure out how in the world members of congress 
can continue to vote for those laws. Please take a closer look at how 
the laws supporting agribusiness is threatening the quality of all of 
our lives.
            Thank you,

Harriet Joslin.
                                 ______
                                 
                          Comment of Nancy Joy
    Date Submitted: Sunday, May 20, 2012, 7:56 a.m.
    City, State: Asheville, NC
    Occupation: Retired
    Comment: My health is compromised. I am celiac. I scrutinize 
everything I put in my mouth. I want to know how the food is raised and 
handled. This is to sustain my life. Now my grandson is celiac, the 
family has food sensitivities and allergies. We really Watch and Select 
with great care what we eat. It is important for you to protect our 
food sources for purity.
                                 ______
                                 
                        Comment of Cheryl Joyce
    Date Submitted: Friday, May 18, 2012, 10:00 p.m.
    City, State: Rainbow Lake, NY
    Occupation: Professor of Chemistry
    Comment: Please, please stop companies like Monsanto and Syngenta 
from dictating horrible farming practices that are unhealthy for the 
people and the soil.
                                 ______
                                 
                         Comment of Paul Jozef
    Date Submitted: Friday, May 18, 2012, 4:32 p.m.
    City, State: Phoenix, AZ
    Occupation: Mediator
    Comment: Please support organic farming and local distribution, and 
withdraw all support for farming that uses toxic chemicals of any kind, 
and work to improve the quality of nutrition in public schools.
                                 ______
                                 
                         Comment of Lilia Judd
    Date Submitted: Sunday, May 20, 2012, 1:28 p.m.
    City, State: Temecula, CA
    Occupation: Courier
    Comment: The current farm bill is a major reason why obesity, diet-
related disease and health care costs are skyrocketing. It's partly why 
food production is responsible for more than \1/2\ of greenhouse gas 
emissions and farm run-off is fouling drinking water and creating dead-
zones in the ocean.
    I would like to press Congress to cut corporate welfare and enact 
agriculture reforms that would create jobs, clean up the environment, 
strengthen sustainable local food systems and make healthy food 
available to everyone.
                                 ______
                                 
                        Comment of Pandora Judge
    Date Submitted: Monday, April 16, 2012, 11:38 a.m.
    City, State: Haydenville, MA
    Occupation: Educator
    Comment: Dear Ag Committee,

    It is my fervent hope that as you continue to craft the 2012 Farm 
Bill, that you are taking to heart the dire need for our policies 
around farming to reflect a deep concern for the health of our people 
and the environment, protecting the family farm and rural/agrarian 
landscape as well as some innovation regarding the localization of our 
food system.
    It is well known that agricultural runoff and pollution from 
massive industrial farms is a considerable toxic environmental issues 
for our lands and in particular, our waterways, and that it costs us 
many billions of dollars per year in clean up. And that is just the 
economic cost, the true costs to our health and environment of 
industrial farm pollution is a complex web that is difficult to 
measure.
    The iconic American farmer is no longer represented by the 
corporate mega farming practices that exist today. There is, however, a 
strong people-led movement to bring our farming culture back around to 
a local system that brings the healthiest, freshest food to a people 
who are plagued with health issues related to food and obesity. The 
local food movement also tends to support small farmers who take vastly 
better care of their land than large ones, reduces our fossil fuel 
resource needs significantly, brings better wages to farmers and 
enhances our cultural heritage. It is a strong movement on its own but 
it needs the help of a farm bill that is innovative and interested in 
supporting and enhancing this powerful trend. Infrastructure such as 
food hubs to help re-localize our food systems are critical. Regulation 
that takes to task (instead of protecting) the large farms that destroy 
the environment and put our health at risk is paramount, along with 
creative and flexible regulation that works with small farms to ensure 
they can continue to produce great products in sustainable ways. 
Blanket regulations that are designed for industrial agriculture do not 
make sense with many small farms.
    Please please take this momentous opportunity to work with the food 
movement that is powerfully taking hold with your constituents. This 
farm bill is a chance to put the people before the corporations. I 
realize `Big Ag' and 'Big Chemical' companies have lots of money and 
powerful lobbies. However, here you have the opportunity to make real 
change for the right stakeholders--the regular people who care about 
their health, the environment and their communities, rather than huge 
corporations whose bottom line is the dollar.
            Thank you,

Pandora Judge.
                                 ______
                                 
                         Comment of Lyn Judkins
    Date Submitted: Monday, May 07, 2012, 6:09 p.m.
    City, State: Chesterton, IN
    Occupation: Disabled
    Comment: It is time to help our neighbors living next door instead 
of across the oceans. Take care of our own families and friends. Senior 
citizens have to choose between life saving meds or foods. And young 
families have to depend on not so healthy starchy foods to make ends 
meet. Let's get healthy and get heart.

Lyn from Chesterton Indiana
                                 ______
                                 
                        Comment of Mailyn Juhlin
    Date Submitted: Saturday, May 19, 2012, 10:11 p.m.
    City, State: Virginia Beach, VA
    Occupation: Career Counselor
    Comment: For our health and for future generations, please protect 
our food supplies and our soil. Many of these new mass-production 
farming practices are resulting in declining health in our country and 
what other countries know from extensive research. Let's stop living in 
a knee-jerk, reactionary mode and be proactive in our health by 
protecting our valuable food sources by supporting organic!
                                 ______
                                 
                        Comment of Kathryn Julia
    Date Submitted: Friday, May 18, 2012, 1:48 p.m.
    City, State: Honolulu, HI
    Occupation: Massage Therapist and Doula
    Comment: There is no greater truth than `we are what we eat'. In 
the land of the free we need to be free to know what is in the food we 
eat and how it was produced.
    If you change the DNA in the food we eat you change the DNA in the 
humans who eat it.
                                 ______
                                 
                        Comment of Courtney Jung
    Date Submitted: Friday, May 18, 2012, 5:06 p.m.
    City, State: Lakeside Park, KY
    Comment: Natural resources such as: seeds, herbs, fruits, 
vegetables, spices, nuts, berries, water, honey, cattle, sheep, goats, 
cows, ox, buffalo, bison, ostrich, pigs, emu's, poultry, chicken, 
turkeys, geese, ducks, and so much more should be considered a private 
industry of and by the people of America (if not the world). It should 
never be taxed or regulated by a government body. The government or a 
majority of governing corporations should never have autonomy over 
natural resources that mankind absolutely needs to survive.
    That is unless you're trying to control what nutrition we have the 
right to choose from in order to starve us or kill us via malnutrition; 
what other reasons are there for the rationing of natural resources 
like warlords?
                                 ______
                                 
                        Comment of Roxanne Junge
    Date Submitted: Tuesday, March 27, 2012, 9:54 p.m.
    City, State: Glenview, IL
    Occupation: Farmers Market Manager & Teacher
    Comment: Local and regional food systems help create jobs and spur 
economic growth in rural and urban communities. Please support 
investment in this growing sector by including the Local Farms, Food, 
and Jobs Act in the next farm bill.
    The future of family farming and ranching in America depends upon 
ensuring that would-be new farmers have access to land, capital, and 
markets. Please support beginning farmers and ranchers by including 
Beginning Farmer and Rancher Opportunity Act in the next farm bill.
    Farmers depend on quality, cutting-edge research to stay 
successful--please make sure the next farm bill invests in this crucial 
work.
    Working lands conservation programs help farmers maintain 
productivity while protecting our air, water, and soil, protect these 
programs from unfair funding cuts!
                                 ______
                                 
                      Comment of Carol Jurczewski
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: Riverside, IL
    Occupation: Homemaker
    Comment: As a person that values the environment and healthy foods, 
please incorporate funding for organic farmers. More and more people 
are turning to organic foods rather than cheaply subsidized crops, such 
as corn and soy.
                                 ______
                                 
                       Comment of Cynthia Justice
    Date Submitted: Friday, May 18, 2012, 7:12 p.m.
    City, State: Asheville, NC
    Occupation: Homemaker, Volunteer
    Comment: We expect monies given in the farm bill to support small 
farms, not the Big Agriculture raking in billions. This has been so 
abused and scammed, it IS a scam even when legal, that it is working 
against the average farmer and trashing, sapping the land.
                                 ______
                                 
                       Comment of Wendy Kaczerski
    Date Submitted: Thursday, May 17, 2012, 1:45 p.m.
    City, State: Princeton, NJ
    Occupation: Foundation Program Officer
    Comment: We need a farm bill that makes healthy food widely 
available to all Americans--including schoolchildren. We must provide 
flexibility for states to use existing food procurement programs to 
purchase fresh, healthy food from local farmers and ranchers. Why 
aren't we doing this already? Think healthier people, lower medical 
expenses, lower insurance rates, more farms, better farm wages.
                                 ______
                                 
                          Comment of Mo Kafka
    Date Submitted: Friday, May 18, 2012, 11:51 a.m.
    City, State: New Brunswick, NJ
    Occupation: Property Management
    Comment: Support for fair farming, for nutrition programs and 
programs that protect the environment are essential. If we do not 
protect the quality of the air, water and Earth the entire nation will 
suffer. This is a priority, support organic farms, small farms and good 
nutrition and proper environmental stewardship.
                                 ______
                                 
                         Comment of Lucy Kagan
    Date Submitted: Wednesday, May 16, 2012, 3:52 p.m.
    City, State: Fayetteville, AR
    Occupation: Nonprofit Program Coordinator for Nutrition Education
    Comment: Cutting Nutrition programs is unacceptable. We are putting 
out nation at risk: obesity rates continue to climb and the health 
effects associated with bigger waist lines are in the billions. We Need 
nutrition programs--A $36 million cut to SNAP is not the way to go. The 
Committee should focus on writing a farm bill that creates economic 
opportunity and improves access to healthy, affordable food for all 
Americans. Supporting big business is killing our economy and our right 
to life and liberty. When unhealthy food is cheap due to subsidized 
commercial crops, our health suffers as a result. Fund vegetable 
production and allow SNAP participants access to fresh produce. It Will 
pay for itself in the not so distant future.
                                 ______
                                 
                       Comment of Katharine Kagel
    Date Submitted: Sunday, April 15, 2012, 9:11 p.m.
    City, State: Santa Fe, NM
    Occupation: Restaurateur
    Comment: YIKES! We need more Food for our hungry neighbors--we've 
been cut 37% in 1 year--and have lost 1.2 million meals as a result--
Please ``beef up'' the food banks ASAP! This country has surplus food--
what's more important than filling bellies?
    Thanks for making this a priority! This is an emergency.

Katharine Kagel.
                                 ______
                                 
                       Comment of Jessica Kaiser
    Date Submitted: Monday, May 14, 2012, 4:56 p.m.
    City, State: Pasadena, CA
    Occupation: Teacher
    Comment: Everyone has the right to eat & grow healthy food from 
farms in this country. We need to support all farmers and individuals, 
who grow organic produce, so that they may do so freely without having 
to struggle and can rely on each other. Not terrible giants like 
Monsanto.
                                 ______
                                 
                       Comment of Natasha Kaiser
    Date Submitted: Tuesday, April 03, 2012, 9:37 a.m.
    City, State: Farwell, MN
    Occupation: Social Worker
    Comment: Dear Representative/Senator Collins:

    I work as a social worker and strongly urge you to support existing 
funding levels for the Supplemental Nutrition Assistance Program (SNAP) 
within the farm bill.
    One in 9 Minnesota citizens struggles to put food on the table. In 
MN, at least a large percentage of the population is food insecure. 
SNAP is critical to maintaining good nutrition and health among our 
population.
    Economic studies in Minnesota show that people who lack access to 
adequate nutrition are more often chronically ill; children don't fully 
develop physically and cognitively and are more prone to fail courses, 
repeat grades and drop out of school before graduation. The cost of 
hunger's impact--largely as uninsured medical care--is conservatively 
estimated at $1.6 billion annually. Cutting SNAP or limiting access to 
it will increase charity care caseloads for the counties, which will be 
borne by local property taxes.
    Last but not least, every dollar of SNAP purchases goes into the 
local economy and generates $1.73 in economic activity. This is not a 
net expense; it is a net gain of 73% that supports jobs on Main Street. 
In a time of high unemployment, we cannot afford to add to the 
unemployed by reducing community economic assets of which SNAP is one.
    As a constituent and as a public servant, I strongly oppose cuts to 
critical anti-hunger programs SNAP, TEFAP as well as the Commodity 
Supplemental Food Program (CSFP) for seniors and Women, Infants and 
Children (WIC)
    For the sake of our neighbors who can't earn enough to get the food 
they need, it is important to maintain funding for programs that 
provide basic food assistance programs.
            Sincerely,

Natasha Kaiser.
                                 ______
                                 
                         Comment of Shawn Kakuk
    Date Submitted: Friday, May 18, 2012, 9:00 p.m.
    City, State: St. Cloud, MN
    Occupation: Education
    Comment: As a citizen who does their best to live a sustainable 
lifestyle, I believe that it is imperative that producers of our 
nation's food, as well as the world's food, have the opportunity to not 
be absorbed by giant corporate farms. The family farmer, and the family 
farmer who has not been co-opted by big agribusiness, have the ability 
to stay in business and provide those of us who desire our food to come 
to us closer to home and from a sustainable entity. Thank you for your 
time in considering my opinion.
                                 ______
                                 
                         Comment of Jeff Kaley
    Date Submitted: Sunday, May 20, 2012, 8:13 p.m.
    City, State: Brooksville, ME
    Occupation: Former Farmer and Govt. Agriculturalist (Retired)
    Comment: Dear Mr. Michaud,

    I am writing about the farm bill . . . I have worked as a farmer in 
Maine, and I was an agriculturalist for the Peace Corps for 4 years. I 
am concerned about the direction farming has gone in this country.
    I would like to see organic farming encouraged. I would like to see 
smaller farms operating and not rely on the big Agri biz which like 
most big biz really seem to care primarily for their own profits and 
not the consumers their business is ideally serving. I also have 
serious concerns about our environment!
    Basically in political lingo here is what I would like to see 
happen.

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thanks for your help in serving us constituents in Maine.
                                 ______
                                 
                 Comment of Roslyn Kalifowicz-Waletzky
    Date Submitted: Friday, May 18, 2012, 11:58 a.m.
    City, State: Brooklyn, NY
    Occupation: Instructor
    Comment: U.S. food and agricultural policy must focus on adopting 
best agricultural practices that put the health of its citizens, the 
land and the livelihood of farmers and farm workers over the interests 
of industrial agriculture lobbyists.
    I have grown some of my food myself and plan to continue doing so.
    I do not buy any processed food WHATSOEVER and avoid all Monsanto 
modified seeds. I also belong to a health food coop so that I avoid all 
the psuedofoods the American government allows corporations to put on 
supermarket shelves.
                                 ______
                                 
                       Comment of Benjamin Kalish
    Date Submitted: Sunday, May 20, 2012, 8:51 a.m.
    City, State: Northampton, MA
    Occupation: Librarian
    Comment: Please insure that the farm bill supports adequate 
research into healthy and sustainable farming practices including 
organic farming and permaculture, and reduce waste by eliminating 
unhelpful and outdated subsidies. The farm bill should emphasize the 
production of healthy, nutritious food in sustainable ways and the 
economic livelihood of those who do so, not the pocketbooks of 
corporate agribusiness.
                                 ______
                                 
                         Comment of Brad Kalita
    Date Submitted: Friday, May 18, 2012, 5:45 p.m.
    City, State: Chiloquin, OR
    Occupation: Self-Employed--Rentals
    Comment: Your programs more often lavish the large corporations and 
wealthy with subsidies while minimizing the little guy by allowing 
political cronyism to dominate. This must be stopped.
                                 ______
                                 
                      Comment of Sandra Kalscheur
    Date Submitted: Friday, May 18, 2012, 12:46 p.m.
    City, State: Arlington, VA
    Occupation: International Health Communications
    Comment: I am an active participant in working to ensure that 
Americans (all Americans) have access to healthy nutritious food. I am 
also active in working to ensure that our smaller farmers get a fair 
shake in all of these laws and regulations (and that they can make a 
living at doing their important work) and that large agribusiness farms 
do not continue to run the show.
                                 ______
                                 
                         Comment of Kim Kambak
    Date Submitted: Friday, May 18, 2012, 9:32 a.m.
    City, State: Prineville, OR
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Field Crops, Poultry/poultry products, 
Vegetables, Other
    Size: Less than 50 acres
    Comment: Dear Congressman Walden,

    I farm 7 acres inside the city limits of Prineville using organic 
and biodynamic methods. I raise pastured poultry, veal and vegetables. 
I nearly break even annually. I can farm because I am a retired school 
administrator. My farm is used for educational field trips and classes. 
I want small producers like myself to have the opportunity to thrive. I 
am a small business. The farm bill appears to cater to large ag. They 
have had enough tax payer dollars. I have watched the end results of 
their work end up on school cafeteria trays. Small, local producers 
could feed America's school children cheaper, more effectively, and 
provide much better nutrition so kids could actually grow into healthy 
beings. Please scrutinize the bill and take a stand for me in Crook 
County and America's school kids!
            Sincerely,

Kim Kambak,
The Last Stand Farm Prineville, Oregon.
                                 ______
                                 
                         Comment of John Kania
    Date Submitted: Friday, May 18, 2012, 8:34 p.m.
    City, State: Ione, CA
    Producer/Non-producer: Producer
    Type: Dairy
    Size: Less than 50 acres
    Comment: Take a look at what God says about food and stop allowing 
American ag business to pay off government to make things better for 
themselves.
                                 ______
                                 
                        Comment of Barbara Kann
    Date Submitted: Friday, May 18, 2012, 12:20 p.m.
    City, State: Nokomis, FL
    Occupation: Music Teacher
    Comment: Dear Representatives,

    We as a nation are suffering the terrible health consequences 
including rapidly rising obesity, diabetes and heart disease that are 
directly linked to the over consumption of sweet and fatty foods that 
have been subsidized by farm bills in the past. Our medical system is a 
financial disaster because of the extreme medical costs of diseases 
like diabetes and cancer, which has killed many of my family members, 
and it will be impossible to control our national debt without reducing 
medical costs.
    A healthy farm bill can help resolve all of these problems. Please 
phase out all agricultural subsidies while boosting support for 
farmer's markets, land conservation and organic farming which protects 
farm workers and consumers against dangerous pesticides and herbicides.
    Our nation does not need to subsidize large farmers and food 
companies. We can all benefit from healthier not cheaper food.
    Thank you!
                                 ______
                                 
                        Comment of Sharon Kansas
    Date Submitted: Friday, May 18, 2012, 4:45 p.m.
    City, State: Garden City, KS
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: I'm a gardener, but I have a doctorate in alternative 
medicine. Go to kdhe.org and see that Kansas has 1% higher rate of 
infant mortality than other states. We have the highest rates of 
atrazine in our water in the U.S. the U.S. has the highest infant 
mortality of the developed world.
    That impact on the healthcare system helped to destroy our economy. 
We must go organic-use of cover crops and crop rotation keeps weeds 
down everywhere else. We can't afford to do this and it's unchristian 
also.
                                 ______
                                 
                        Comment of Paul Kaperick
    Date Submitted: Friday, May 18, 2012, 2:53 p.m.
    City, State: Lakewood, WA
    Occupation: Real Estate Broker
    Comment: We need an agriculture bill that provides a sustainable 
model for agriculture. Our current system of poisoning the soil with 
chemical on huge mono crop farms will not feed this nation properly.
                                 ______
                                 
                         Comment of Adam Kaplan
    Date Submitted: Sunday, May 20, 2012, 4:22 p.m.
    City, State: Laguna Beach, CA
    Occupation: Piano Tuner
    Comment: Diversity in nature and business is our safety net. Many 
small(er) farms are better than a few giant ones. Efficiency and 
quality are actually better in smaller farms (or any other endeavor). 
Don't let the ``Big Boys'' crowd out the little guys.
                                 ______
                                 
                         Comment of Anne Kaplan
    Date Submitted: Friday, May 18, 2012, 4:41 p.m.
    City, State: Philadelphia, PA
    Occupation: Retired
    Comment: We need to stop supporting agribusiness, the corn industry 
and abusive cattle practices. We need to support growing healthy 
vegetables, and non-hormone/antibiotic chicken, pork and beef. Please 
support a healthy and productive farm bill.
                                 ______
                                 
                        Comment of Barry Kaplan
    Date Submitted: Friday, May 18, 2012, 11:35 a.m.
    City, State: Madbury, NH
    Occupation: Environmental Science Teacher
    Comment: Please support farm and food policy that will give the 
public good, whole food that is produced in a sustainable manner. As 
the population becomes more overweight and obese year by year, we must 
reduce our use of corn-based sugars in our foods and beverages. And as 
our climate continues to warm, we must shift our consumption of foods 
to those that produce less carbon as a by-product. Thank you!
                                 ______
                                 
                       Comment of Caitlin Kapoor
    Date Submitted: Friday, May 18, 2012, 10:03 a.m.
    City, State: Pittsburgh, PA
    Occupation: Health Counselor
    Comment: This country is in a crisis. The obese are getting 
heavier. Our children are eating Twinkies instead of carrots, and 
government subsidized crops are the foundation for every junk food on 
the market, which the lobbyists are fighting hard to keep. Things Have 
to change. We need fresh produce to be affordable and accessible. 
Deprived socioeconomic classes need to be educated and given ways to 
provide more nutritious food for their families. The cycle we are 
currently in will kill this nation.
                                 ______
                                 
                     Comment of Alan Kapuler, Ph.D.
    Date Submitted: Friday, May 18, 2012, 10:01 p.m.
    City, State: Corvallis, OR
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: We cannot allow agriculture to poison us.
    First we poison the bugs, then the fungi and animals and now 
ourselves with the genetically engineered foods that have become our 
major crops.
    Support for organic agriculture by developing microbiological 
fertilizer regimes will improve our land, water and human health.
    It is time for a change from supporting large mega corporations 
parasitizing our society to helping more people farm organically.
    Is it a wonder that we have a set of epidemics i.e., diabetes, 
obesity, chronic heart disease, Alzheimer's . . .
    Too many monocultures, too many huge machines, not enough devoted 
farmers, not enough biodiversity.
    It is time for a change for the good not the greed.
                                 ______
                                 
                     Comment of Sally Karabelnikoff
    Date Submitted: Friday, May 18, 2012, 1:49 p.m.
    City, State: Anchorage, AK
    Occupation: Organic Grower
    Comment: Our country is desperate to have organic food available 
for improving health. Every time I get my organic food done to eat I 
feel so much better. Working on health saves thousands of dollars 
against pills! The talk about expensive organic food is not correct 
when you count the cost of pills that can be eliminated . . .
                                 ______
                                 
                       Comment of Klaus Karbaumer
    Date Submitted: Saturday, May 19, 2012, 12:35 p.m.
    City, State: Platte City, MO
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: The new farm bill has to make sure that small-scale 
organic producers are not out-competed by large scale industrialized 
farms, which generally are neither able to give as much attention to 
the needs of the plants and the soil as smaller producers do. Even more 
important is the social aspect of keeping people on and in the land 
with gainful occupation and not depending on the exploitation of cheap 
migrant labor.
                                 ______
                                 
                         Comment of Brown Karen
    Date Submitted: Monday, April 30, 2012, 12:17 p.m.
    City, State: Lynn, MA
    Occupation: Director of Faith Development
    Comment: Please do not cut any funding for those in the most need. 
How we support the agencies that help people the most is indicative of 
how good and compassionate we are as a state and nation.
                                 ______
                                 
                         Comment of Vicky Karhu
    Date Submitted: Saturday, May 19, 2012, 3:25 p.m.
    City, State: El Prado, NM
    Occupation: Nonprofit
    Comment: Please protect funding for programs supporting for small 
and limited resource farmers and ranchers, especially the section 2501 
or Outreach and Assistance to Socially Disadvantaged Farmers and 
Ranchers Program and Community Food Projects. Thanks!
                                 ______
                                 
                         Comment of Piper Karie
    Date Submitted: Saturday, May 19, 2012, 1:02 a.m.
    City, State: Fort Collins, CO
    Occupation: Photo-Journalist
    Comment: The government exists to serve the people, not the 
corporations. We need a farm bill that will ensure Organic, safe, 
healthy farming and food for our country. Not another bill created and 
pushed by the GMO industry for their own profit. DO the Right thing and 
support the health of the American people! Be a Hero. We could sure use 
some.
                                 ______
                                 
                       Comment of Samantha Karim
    Date Submitted: Friday, May 18, 2012, 1:55 p.m.
    City, State: Los Angeles, CA
    Occupation: Attorney and Student
    Comment: Please put the health of the citizens of your district 
before agro business. Trends are moving towards healthy, organic foods. 
The farm bill should reflect these consumer desires.
                                 ______
                                 
                      Comment of Theresa Karnecki
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Palmer, MA
    Occupation: Homemaker
    Comment: Small sustainable farms can & do match the output of big 
agriculture, and they do it while producing more nutrient-dense crops 
And replenishing depleted soil. Small farms invigorate our economy. 
Support Small Farmers!
                                 ______
                                 
                       Comment of Jason Karnezis
    Date Submitted: Saturday, May 19, 2012, 9:24 a.m.
    City, State: Ridgefield, WA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I'm 37, have been farming part-time for 7 years, finally 
bought my own property in 2011 and continue to make a go of fruit and 
vegetable farming in SW Washington. The demand is through the roof. If 
I had the money, I would increase 10-fold in production, hire full-time 
staff, and work full time myself. Instead, I'm my own loan officer with 
off-farm income keeping me afloat. I want to you to know that I fully 
endorse all provisions of the Local Foods, Farms and Jobs Act (H.R. 
3286).
    Within a year of owning our farm, we applied and were awarded 
conservation funding. I believe congress should fully fund conservation 
programs, such as the Conservation Stewardship Program, and ensure 
enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs.
    The past winter, I attended evening classes through my local 
extension office, to bolster my small business skills and learn about 
programs designed for beginning farmers. The implementation of all 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236) is key to ensuring the next generation of farmers can produce 
food made in the USA.
    Based on advice from another beginning farmer, I applied for an 
EQIP grant originally under the organic standards. Since we had just 
purchased the property, we were still waiting on our Organic 
Certification but were still awarded a standard EQIP grant to construct 
efficiencies and conservation initiatives. Please maintain the EQIP 
Organic Initiative.
    I understand you are faced with tough decisions every day. Please 
take a moment to consider that with little outreach from ourselves, our 
farm can not keep up with orders, neighbors knock on our door and ask 
when they can come visit and help, and with only 7 years under our 
belts, I now have interested younger folks contacting me to learn the 
ins and outs of local, organic fruit and vegetable production. Farms 
once served as hubs of the community, but socially and economically. My 
goal is to build such a hub, work tirelessly, and build a stronger 
local economy. Thank you for your time.

Jason.
                                 ______
                                 
                     Comment of Patricia Karr-Segal
    Date Submitted: Friday, May 18, 2012, 1:06 p.m.
    City, State: Ithaca, NY
    Occupation: Social Work
    Comment: As a consumer and parent, I am increasingly concerned 
about the inequitable policies in the proposed farm bills that favor 
large farms and agribusiness. Supporting family farms and local food 
production has become a pivotal issue for me as I consider where my 
votes and dollars go.
                                 ______
                                 
Submitted Statement by Cornell Kasbergen, Vice Chair, Dairy Committee, 
   Land O'Lakes Board; Second Vice Chairman, National Milk Producers 
                               Federation
    Good morning, Congressmen Costa and Cardoza. Thanks for holding 
this field hearing today, and inviting me to testify. I am Cornell 
Kasbergen, a dairyman from Tulare, where I farm with my wife Teri, son 
Case and his wife Allison. I am a member of the Land O'Lakes Board, 
serving as vice chair of the Dairy Committee, and serve as the Second 
Vice Chairman on the National Milk Producers Federation board.
    California's dairy sector faces serious challenges. I think you're 
aware of that, which is why we're all here today. Some of these are 
local or state issues which, for better or worse, are out of the 
jurisdiction of the U.S. Congress.
    I'm not going to spend time on those issues, because while they're 
very important, that's not what we need your help with. What we do need 
you to do is enact a new farm bill, containing the provisions of the 
Dairy Security Act that Congressman Peterson of Minnesota first 
introduced last fall.
    As I think you're aware, one element of the current safety net for 
dairy farmers is the price support program. It was created after World 
War II. The other element, the MILC payment program, was modeled after 
that Northeast Dairy Compact from the 1990s. These 20th century 
programs aren't doing us any good in the 21st century. Neither the 
price support program nor the MILC program provides any kind of safety 
net, because they're tied to the price of milk. They can't address the 
other key economic driver of our bottom line, which is feed costs.
    Perhaps even more so than volatile milk prices, it is this 
volatility in feed costs that is determining whether we make money, or 
lose money, in a given year. By ending the price support and MILC 
programs, as well as the Dairy Export Incentive Program, we can shift 
those Federal resources to margin insurance. Such insurance will help 
protect against the type of disastrously low margins we experienced in 
2009.
    This new approach will be particularly valuable for dairy farmers 
in our state. It helps guard against surges in feed costs. It doesn't 
have production or volume limitations, which for larger farmers is a 
basic matter of fairness. We shouldn't have a significant part of our 
milk supply exposed, with no safety net coverage at all, which is the 
problem with the MILC program. Margin insurance will complement our 
existing ability to use the futures markets to help mitigate our price 
risk.
    The best thing is, this is a voluntary program. Those who don't 
want this protection don't have to use it. Those who do, will help 
share in the cost, and they are subject to in the provisions of the 
Market Stabilization program. This to me is a reasonable and 
appropriate trade-off. There's no free lunch.
    Some have argued that within this proposed program, we should not 
have a 0national feed cost calculation, but should make allowances for 
certain states . . . such as California. I have three reactions to 
that: first, even within California, the California Department of Food 
and Ag tracks are four different feed costs. Which of those should be 
used? Whichever you pick, you're leaving out the other three.
    Second, let's be frank: it is not feed costs that are the issue, it 
is the way milk is priced in California. On average, our feed costs are 
a little higher than the national average, according to USDA, but our 
milk price in California averaged 10% less than the average of the top 
23 dairy states between 2005 and 2010.
    There have been preliminary discussion at our board to analyze if 
California should join the Federal Order. This would require the farm 
bill to contain a provision to allow California to join the Order with 
the current quota system intact. This provision was in the 1996 Farm 
Bill.
    Third and most importantly, I would argue that once you go down the 
road of making exceptions, we'll lose the national consensus we have 
achieved so far. The Dairy Security Act was not created to change the 
competitive dynamic between states.
    And we can't afford it. You know how Washington works. It's no 
different in the dairy business. Once the compromise unravels, we'll be 
back to square one. And that is unacceptable.
    The NMPF effort has come to Congress for the first time in history 
with a majority of the dairy producer community supporting one bill. 
This process has involved compromise between large and small farmers 
and farmers from east to west and north to south.
    In conclusion I would say this is your chance to make history and 
change dairy policy for the better. This is our once in a lifetime 
opportunity to make history, let's make it happen.
    Thank you.
                                 ______
                                 
                       Comment of Stefani Kasdin
    Date Submitted: Thursday, April 26, 2012, 12:25 p.m.
    City, State: Cherry Hill, NJ
    Occupation: Cashier
    Comment: The farm bill needs to include laws for the production of 
sustainably produced and distributed produce, fruits and meats that 
affords fair food access for all regardless of income or location with 
a focus on reduction of chemical usage and promoting locally produced 
farm products and fair labor practices.
                                 ______
                                 
                       Comment of Stephen Kaseman
    Date Submitted: Friday, May 18, 2012, 1:55 p.m.
    City, State: Peachtree City, GA
    Occupation: Jewelry Craftsman
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> Cutting subsidies to wasteful monocrop agribusiness using 
        GMO crops.

  <bullet> Maintaining USDA SNAP program to help hungry families meet 
        dietary and nutritional needs to be healthy.
                                 ______
                                 
                       Comment of Kathryn Kassner
    Date Submitted: Friday, May 18, 2012, 4:29 p.m.
    City, State: Milan, NY
    Occupation: Teacher
    Comment: Please make reforms to the farm bill that encourage 
organic and sustainable agriculture, as well as promote growing 
products of nutritional value.
                                 ______
                                 
                       Comment of Lindsay Kastle
    Date Submitted: Friday, May 18, 2012, 2:09 p.m.
    City, State: Carroll, IA
    Occupation: Photographer
    Comment: Organic farming is do important today more than ever. It's 
hard enough finding organic produce/food the way it is . . . please do 
not cut anything that us hoping the organic food industry grow. Organic 
food is the healthiest kind of food anyone can eat.
                                 ______
                                 
                       Comment of Wallenta Kathy
    Date Submitted: Saturday, May 19, 2012, 1:33 p.m.
    City, State: Minneapolis, MI
    Occupation: Retired
    Comment: As an elder who has grown up in rural MN, with home grown 
chemical free and diverse, delicious food, and as one who has 
experienced the beauty of growing it and Knowing it, it is sad and 
frightening to see what is happening in the name of ``health'' and 
``feeding the world''. Profit and abuse of people and land prevail all 
around. Many of us are waking up to the damage we are doing to 
ourselves and the planet. Please hear the cry and needs of organic 
growers and eaters. In the end, it will be profitable all around. A 
win-win. Thank you.
                                 ______
                                 
                      Comment of Matthew Katinsky
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: Fort Wayne, IN
    Occupation: GIS Programmer
    Comment: My daughter has a life-threatening tree-nut allergy, and 
asthma which is induced by several environmental allergies. Living in 
Indiana, we are constantly exposed to agricultural pollution from 
large-scale industrial practices that dump toxins into the air and 
water while squeezing family farms out of business.
    I urge you to shift course. Consumers may want cheap food, but they 
want healthy food, and they want a clean safe place to raise their 
children. In constantly putting profit and yield first, our industrial 
agricultural system does not care how many pesticides, hormones, 
antibiotics, and other chemicals enter our bloodstreams. This is short-
sighted, unsustainable, and morally indefensible.
    I support full endorsement of all provisions of the Local Foods, 
Farms and Jobs Act (H.R. 3286), fully funding conservation programs, 
such as the Conservation Stewardship Program, and making sure that 
enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs, the implementation of all 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236), and maintaining the EQIP Organic Initiative.
                                 ______
                                 
                          Comment of Barb Katz
    Date Submitted: Tuesday, May 15, 2012, 2:03 p.m.
    City, State: Cherry, NJ
    Occupation: Retired
    Comment: America is hungry. Please put the people in need back on 
the list of those we help. We are the richest country with the most 
selfish congress in history. Let's care for our people.
                                 ______
                                 
                      Comment of Paula Katzenmeyer
    Date Submitted: Friday, April 06, 2012, 3:15 p.m.
    City, State: Hutchinson, MN
    Occupation: Teacher/Trainer
    Comment: As a member of McLeod County's Emergency Food and Shelter 
Program board, I urge you to resist making any cuts to the Nutrition 
Programs.
    As a constituent and as a public servant, I strongly oppose cuts to 
critical anti-hunger programs SNAP, TEFAP as well as the Commodity 
Supplemental Food Program (CSFP) for seniors and Women, Infants and 
Children (WIC)
    For the sake of our neighbors who can't earn enough to get the food 
they need, it is important to maintain funding for programs that 
provide basic food assistance programs.
    Our local food shelves are already struggling to keep enough food 
on their shelves to provide to those in need. Any cuts to the Nutrition 
Programs would have a significant impact on our local resources and the 
health and welfare of our community.
            Sincerely,

Paula Katzenemeyer.
                                 ______
                                 
                        Comment of Lucy Kaufman
    Date Submitted: Friday, May 18, 2012, 3:30 p.m.
    City, State: Goldendale, WA
    Occupation: Retired
    Comment: The number of Americans seeking food sources free of 
pesticides, chemicals, and GMOs is growing daily. Those who care of 
their health and the health of their families look for organic foods 
every day. We need a Healthy farm bill and we need to get 
agribusinesses out of our lives.
                                 ______
                                 
                       Comment of Andrew Kavanagh
    Date Submitted: Friday, May 18, 2012, 1:28 p.m.
    City, State: Los Angeles, CA
    Occupation: Graphic Artist
    Comment: There must be reform to Genetically Modified foods! 
America should unite with the rest of the world & ban GMO's! Don't put 
profit over people's health.
                                 ______
                                 
                      Comment of Maureen Kavanagh
    Date Submitted: Sunday, May 20, 2012, 12:50 a.m.
    City, State: Woodside, NY
    Occupation: Unemployed
    Comment: We need a farm bill that gives help to the family farmer, 
not big farming corps like Monsanto, who want to shove GMO's down our 
throats . . .
                                 ______
                                 
                         Comment of Judith Kawa
    Date Submitted: Friday, May 18, 2012, 9:14 a.m.
    City, State: Johnston, RI
    Occupation: Chair of Johnston Municipal Land Trust
    Comment: I urge you to support the Senate funding levels for 
Agricultural Land Easements which advance the proven model of 
leveraging Federal funds through local partners to secure perpetual 
conservation easements that help keep farm lands in production while 
conserving important natural resources. Our community is rich with 
farmland . . . a way of life that is becoming increasingly harder to 
maintain. Through Federal funding we will be able to work with our farm 
owners in preserving our natural resources while helping them to 
produce the food our community needs and deserves.
    Restore the existing FRPP match formula to encourage bargain sales 
& allow waivers of the match requirement for strategic projects.
    Restore language clarifying that the Federal government is not 
acquiring a real property interest and has only a ``contingent right of 
enforcement'' should the cooperating entity fail to enforce its 
easement.
    As always, thank you for your continued support.

Judy Kawa,
Chair,
Johnston Municipal Land Trust.
                                 ______
                                 
                        Comments of Sheila Kaye
    Date Submitted: Friday, May 11, 2012, 2:27 p.m.
    City, State: Palm Harbor, FL
    Occupation: Licensed Clinical Social Worker
    Comment: I was raised in farm country; I am committed to having 
healthy foods, supporting organics, and educating about the ill effects 
of GMO and corporate farming & pesticides. Support our family farmers 
and respect for the Earth before we are completely compromised!
    Date Submitted: Saturday, May 19, 2012, 12:11 p.m.
    Comment: Please listen to citizens wanting organic foods, healthy 
eating to maintain our well being. The pesticides and processed foods 
are contributing to increased disease, diabetes, obesity, cancers. You 
are supposed to represent citizens, Not Corporate Greed!
                                 ______
                                 
                        Comment of Meghan Keane
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Brooklyn, NY
    Occupation: Artist
    Comment: My grandfather was a farmer for 50 years in south western 
Minnesota. I come from a culture and family of farmers as well as 
educated individuals who care about the future of the planet and its 
inhabitants. Thus, I support: the full endorsement of all provisions of 
the Local Foods, Farms and Jobs Act (H.R. 3286). I support 
congressional funding of conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I also support the implementation of all provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236). Last, I 
emphatically support both maintaining the EQIP Organic Initiative and 
cannot stress enough the need to have a universal standard for organic 
foods, including differentiating between GMO seeds versus organic seed 
sprayed with chemicals. We need to know where our seeds come from and 
how our food is subsequently grown in order to make informed decisions.
                                 ______
                                 
                       Comment of Landis Kearnon
    Date Submitted: Friday, May 18, 2012, 5:53 p.m.
    City, State: Tucson, AZ
    Occupation: Library Clerk, Writer
    Comment: We must move firmly and as rapidly as possible in the 
direction of sustainable and organic farming practices. No more killing 
our land and water--and us--for big profits.
                                 ______
                                 
                        Comment of Edie Keasbey
    Date Submitted: Friday, May 18, 2012, 12:09 p.m.
    City, State: Patterson, NY
    Occupation: Retired Environmentalist
    Comment: I grew up on a NY dairy farm. We took care of our animals, 
we took care of our soil. We worked with the weather. We rotated our 
crops, we did not drench our soils with poisons. Our animals were 
fertile, they ate healthy food, not recycled manure. Our crops did not 
need poisons in order to grow. That farm sustained farmers from before 
there was a New York State. Today's industrial farms will be useless 
within the next 50 years, worn out, and poisoned to death. It's time 
the USDA woke up.
            Thank you,

Edie Keasbey.
                                 ______
                                 
                       Comment of Suzanne Keating
    Date Submitted: Tuesday, May 15, 2012, 11:07 a.m.
    City, State: Woodstock, VT
    Occupation: Consultant
    Comment: The backbone of America is in the small farms and farming 
communities that helped build this country. The future of America lies 
in promoting and supporting the Organic Farmers in every community and 
state in this great country. The health and well-being of our children 
and this country depends on our governments' support of the small 
farmers who grow non-GMO crops to feed their communities.
                                 ______
                                 
                       Comment of Carol Kegerize
    Date Submitted: Friday, May 18, 2012, 5:45 p.m.
    City, State: Cherokee Village, AR
    Occupation: Retired
    Comment: I'm concerned and upset about the nutritional value of our 
food. Mega farm companies is not the answer. We need organic food to 
produce healthy people and animals. I resent having to take supplements 
in order to feel good and maintain the health level I'm at, which isn't 
the greatest because of the unhealthy additives in our food. I'm 
embarrassed to think our Congressional representatives want to reduce 
food stamps at a time when so many are hungry due to no jobs. Your 
goals must be rethought if you are to provide the leadership we 
require.
                                 ______
                                 
                         Comment of Lori Kegler
    Date Submitted: Friday, May 11, 2012, 4:42 p.m.
    City, State: San Pedro, CA
    Occupation: Science Teacher
    Comment: The farm bill needs to support small farmers, not the 
monolithic giants. Stop welfare funding farmers that are destroying the 
land with chemicals and GMOs, and support the farmers that practice 
conservation methodologies.
    The Farm bill needs to stop subsidizing dairies, ranchers, and 
other factory farms, and subsidize those who raise animals humanely. 
Killing mustangs so they don't compete with beef cattle must be 
stopped. They are a vital part of our history and heritage.
                                 ______
                                 
                        Comment of Karen Keller
    Date Submitted: Friday, May 18, 2012, 8:40 p.m.
    City, State: Del Mar, CA
    Occupation: Physical Education Teacher
    Comment: Stop subsidizing factory farms, corn, soy, and GMOs.
    The use of pesticides, hormones and antibiotics in industrial 
agriculture should not be paid for by the taxpayers.
    The American health crisis and obesity epidemic are results of the 
subsidies for foods which have made Americans sick and Fat. If there 
are any subsidies, they should only be for small, local, organic 
farmers to grow vegetables and fruits.

  <bullet> Pesticides are responsible for the collapse of the bee 
        colonies.

  <bullet> Stop subsidizing corporations.

  <bullet> No taxpayer money for corporations that use pesticides.
                                 ______
                                 
                       Comment of Dorinda Kelley
    Date Submitted: Wednesday, May 16, 2012, 9:51 p.m.
    City, State: Portland, OR
    Occupation: Retired
    Comment: I am a Senior who, because of disability and forced early 
retirement, live on $850.00 a month and pay $700 a month for rent and 
utilities. If it were not for the SNAP program, I would not be able to 
afford food. Please think of the poor while you are writing the farm 
bill.
                                 ______
                                 
                         Comment of Erin Kelley
    Date Submitted: Wednesday, May 02, 2012, 10:45 a.m.
    City, State: San Antonio, TX
    Occupation: Student
    Comment: Given the results from the 2007 Census of Agriculture 
revealing that American farmers are becoming increasingly concentrated 
in the 55 years and older age bracket, programs to aid young and 
beginning farmers and ranchers must be made a priority in the current 
farm bill. In particular, microloan programs that specifically target 
young, beginning farmers are essential to ensure the future viability 
of agricultural production in the United States, as these programs have 
been proven to especially effective in aiding these new producers.
                                 ______
                                 
                        Comment of Jane Kellogg
    Date Submitted: Friday, May 18, 2012, 5:43 p.m.
    City, State: Ithaca, NY
    Occupation: Retired
    Comment: Please stop paying subsidies to large corporations and 
wealthy foreigners who do not even farm. The money is needed here at 
home to support small family farms and provide healthy food for us all.
                                 ______
                                 
                       Comment of Tracey Kellogg
    Date Submitted: Friday, May 18, 2012, 12:32 p.m.
    City, State: Poulsbo, WA
    Occupation: CPA, Finance Manager
    Comment: I'm appalled that impact of big agriculture on the quality 
of our food and its impact on the environment. It is the small, local 
farmers that need the support, not mega corporations. Obesity is an 
epidemic in the U.S. and the public health issues are enormous. There 
is nothing about big agriculture that will help us with this problem.
                                 ______
                                 
                          Comment of Ann Kelly
    Date Submitted: Friday, May 18, 2012, 9:58 a.m.
    City, State: Mount Laurel, NJ
    Occupation: Retired
    Comment: I want to know that my food and the food that my children 
and grandchildren are free from pesticide, chemicals, and are 
affordable. It is criminal that a bag of chips is less that a bunch of 
grapes. Big lot feeding and inhumane treatment of animals is 
unnecessary. Stop subsidizing big agriculture and allow for organic and 
more self sustaining farming. End direct payments and countercyclical 
commodity programs, and replace them with loophole-free agriculture 
risk coverage.
                                 ______
                                 
                          Comment of C. Kelly
    Date Submitted: Saturday, May 19, 2012, 4:16 p.m.
    City, State: Elk Grove, CA
    Occupation: Life Coach
    Comment: Responsibility in the growing and producing of life 
sustainable food is incumbent on the representatives of this country. 
Moreover foods must be free of GMO's and any other chemicals, 
Preserving human lives and ending GMO war on un-suspecting people in 
this country is of priority.
    As a constituent in your district this issue is significant and 
meaningful to all.
            Sincerely,

C. Kelly.
                                 ______
                                 
                        Comment of Daniel Kelly
    Date Submitted: Friday, May 18, 2012, 11:01 p.m.
    City, State: Canton, MO
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: I am an organic farmer, not for the recent benefits 
(EQIP), but because of health and environmental concerns. I Started out 
as a volunteer at the NRCS (SCS) and I am greatly concerned about both 
water quality and keeping soil on the land, not downstream from poor 
land stewardship. Please, support an Organic Farm Bill. As a certified 
organic grower, all my decisions are documented with a great emphasis 
and care for quality nutrition and environmental rigor. I only wish all 
landowners would do the same. Most of them are not farmers, just 
landowners, with little connection to our once heritage, good land 
stewardship.
                                 ______
                                 
                Joint Comment of Jessica and Kasey Kelly
    Date Submitted: Friday, May 18, 2012, 1:22 p.m.
    City, State: Faribault, MN
    Occupation: Teacher
    Comment: Dear Representative Kline,

    As a mother and educator it scares me to know what goes into our 
food on a daily basis. Organic foods we know are safe, healthier and 
tastier than the alternative and with government support cheaper. The = 
toll mass produced agriculture has on water quality, soil quality, air 
quality and societal health is incredibly scary. I want this world to 
be a safe place for my students and children to grow up in. That is why 
I am asking you to seriously consider the farm bill and making it one 
what we can all live with for years to come.
            Sincerely,

Jessica Kelly.
                                 ______
                                 
                       Comment of Margaret Kelly
    Date Submitted: Friday, May 18, 2012, 11:50 a.m.
    City, State: St. Louis, MO
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I grow my own vegetables in my urban garden. These would 
be specialty crops and are expensive to buy if you can find them. They 
are chemical free and NOT subsidized, yet I still pay taxes to 
subsidize `food' I am that I am unwilling to eat or feed my family. The 
farm bill is off the rails and destroying this country's health, 
economy and foreign relationships. Do something! Please!
                                 ______
                                 
                       Comment of Patricia Kelly
    Date Submitted: Friday, May 11, 2012, 10:17 a.m.
    City, State: Tucson, CT
    Occupation: Retired
    Comment: Right now the need for assistance with food is greater 
than ever, and the idea of refusing to help the impoverished after we 
supported Wall Street is unthinkable. Congress is there to help the 
public defined as citizens, not corporate to retain their profits. Do 
Your Jobs Or Get Off The Ballot, But People Are Suffering.
                                 ______
                                 
                        Comment of Thomas Kelly
    Date Submitted: Saturday, May 19, 2012, 12:59 p.m.
    City, State: Flemington, NJ
    Occupation: IT
    Comment: I believe the future of farm policy must be directed 
towards adopting agricultural practices focusing on health and 
nutrition, along with the land itself, specifically it's ability to 
sustain and grow not just food, but nutritious food time and again.
    Before I mention my own personal thoughts, I would like to lend 
support to several items already in play:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Specifically, I would also like to mention:

  <bullet> Soil Quality & Soil Erosion.

      Soil erosion is already a large and mostly unspoken issue, and 
        what soil we do have to grow food with is severely lacking in 
        it's ability to produce nutrient dense food, and is 
        increasingly becoming saturated with toxins. The current 
        industrial practices of farming yield food less and less 
        nutritious and yet more and more expensive to produce. Further, 
        it is a major source of the toxins mentioned. Numerous 
        instances have been seen and documented indicating devastating 
        effects from the byproducts of industrial farming in the 
        surrounding environment, as well as the wildlife populations in 
        that environment. These toxins are carried in runoff water far 
        from their originating sources and are building up to hazardous 
        levels well beyond the initial bounds of the problem. Contrary 
        to this, organic farming practices yield nutrient dense food, 
        while enriching the soil and contributing to a healthy and self 
        sustaining environment. Wildlife flourishes in this 
        environment, and farming actually becomes less expensive as the 
        continued practice of organic farming builds up the quality of 
        the soil, requiring less resources to produce bountiful 
        quantities. Current methods of complementary planting should 
        also be introduced along with organic farming practices, as it 
        has shown dramatically beneficial results in controlling 
        pests--one of the big sources of toxins in current farming 
        practices are pesticides.

  <bullet> Sustainability, Health & Cost

      While already mentioned above, I will mention again: organic 
        farming practices lead to sustainable, long term solutions to 
        the current rising cost of food and, therefore, the 
        unsustainable practices in use today. Along with this, I want 
        to introduce the concept of distributed farms as being far more 
        resilient and cost effective than massive farms. In today's 
        environment and changing weather patterns, keeping farming 
        localized to only a few regions leads to massive price 
        fluctuations, as well as shortages. Atypical weather and 
        disease can devastate production. Distributed farms produce 
        food across a wide and varied scope of weather, thereby making 
        weather patterns and their changes and unpredictability less 
        able to impact the total yield. Should disease, bad weather, or 
        unforeseen catastrophe (such as an earthquake or flood) damage, 
        halt or destroy food production in one location, the 
        distributed nature of the overall food production would 
        minimize the overall damage to the food supply as well as 
        fluctuation in prices. Further, as noted in many studies now 
        available, the worldwide spread of factory farming is 
        increasing poverty and threatening health (for a reference 
        among many possible: a report by Compassion in World Farming 
        http://www.organicconsumers.org/toxic/factoryfarm082902.cfm).* 
        Beyond the human considerations of factory farming, it is both 
        clear and readily evident, it is both proven and alarming, that 
        current methods of farming are contributing in a dangerous way 
        to the general decline in our ability to deal with emerging 
        threats to human health, they are contributing to the threats 
        themselves, and they are contributing to the decline of the 
        accepted level of health of the general population.
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.

---------------------------------------------------------------------------
  <bullet> Future & Economic Uncertainty

      Last, I would like to touch upon what it means to have a 
        thriving, distributed, organic farming practice as the primary 
        method of food production in our country. It would practically 
        do away with the need to subsidize the population in order to 
        feed itself. It would ultimately employ a vast number of 
        currently jobless citizens. It would also provide the us with 
        the ability to feed ourselves regardless of what happens to The 
        Dollar on the world stage. Once a certain point in production 
        is reached, we can begin exporting a surplus: there will never 
        be too much food for the world, and exporting high quality, 
        organic items will ensure demand for our surplus the world 
        over.

    Thank you for taking time to read my comments, and I hope you 
consider them, and the importance of removing large corporate 
interests, control and profit from forming a smart and considered path 
to a future, healthy America.
                                 ______
                                 
  Submitted Statement by William H. Kelly, Vice Chairman, Jelly Belly 
                             Candy Company
    The history of our company began in Belleville, IL in 1869, when my 
great-grandfather and his brother bought a small store-front candy 
business. After that time, several family candy businesses disappeared 
but the business that is today Jelly Belly Candy Co. moved to Chicago 
in 1903 and then to North Chicago in 1913, where we still make candy. 
Over the years we have fought along with others in our industry to 
change the antiquated sugar provisions of the farm bill. There have 
been years when we ran out of beet sugar in the fall. We have endured 
price spikes that stopped retailers from buying candy because they felt 
the public would not purchase the candies at ever-escalating prices. We 
have watched while other companies moved to foreign countries or went 
out of business because of the high price we pay for sugar. It is time 
to change this law.
    The U.S. confectionery industry is still made up of hundreds of 
small- and mid-sized businesses in addition to well-known international 
brands. The industry's three largest manufacturing subsectors employed 
48,653 workers in 2010, according to the U.S. Census Bureau's Economic 
Census & Annual Survey of Manufactures. Most confectioners are family-
owned, often multi-generational businesses.
    Sugar policy affects our company and other confectioners, but it 
also has an impact on a wide range of other food industries. Sugar is 
an ingredient in frozen vegetables, pasta sauce, peanut butter, canned 
fruit and many other products.
    Our current sugar policy has clearly failed and needs to be 
scrapped. Congress should reform the outdated, cumbersome, 
counterproductive Federal sugar program immediately.
    The sugar program does not usually involve direct Treasury outlays, 
but it certainly imposes significant costs on consumers and the food 
industry. Study after study has found that it raises consumer costs by 
billions of dollars each year. This means that the sugar program's 
costs are regressive, since lower-income Americans spend a much higher 
share of their income on food than do middle- and upper-class citizens.
    A recent study by Iowa State University economists estimated that 
U.S. consumers could save up to $3.5 billion a year, and our economy 
could add 20,000 jobs each year, if Congress reformed the sugar 
program. At a time when unemployment remains too high and economic 
growth remains too slow, Congress should take advantage of this 
opportunity to boost the economy and bolster employment by getting rid 
of a classic example of big-government intrusion into the private 
sector.
    The sugar program exists in order to restrict sugar supplies and 
drive up prices. Every part of the program is designed with those goals 
in mind. There are price supports to put a floor under domestic market 
prices; there are import quotas to restrict competition from 
international sources; there is a truly outlandish program (thankfully 
never used, so far) to buy up surplus sugar and re-sell it to ethanol 
plants at a loss to taxpayers; and then there is a byzantine system of 
company-by-company sales quotas, established by U.S. Department of 
Agriculture bureaucrats, that make it illegal for sugar processors to 
sell more than their quota.
    Yes, in the sugar program the Federal Government tells private 
companies how much sugar they are allowed to sell. There are hefty 
penalties for violating these ``marketing allotments,'' which result in 
a kind of Congressionally-established cartel. If you think that doesn't 
sound like America, you're absolutely right--but it's the law of the 
land.
    As a result of policies like these under the 2008 Farm Bill, retail 
sugar prices set a fiscal year record in 2011, at 66.7 per pound. That 
was 20 a pound higher than the average under the 2002 Farm Bill. So 
much for the sugar lobby's claims that consumers aren't harmed by the 
sugar subsidy.
    Companies that have to buy sugar, of course, are also paying a 
price. FY 2011 also set a record for wholesale sugar prices--the prices 
that companies like ours pay. The 2011 wholesale price averaged 55.8 a 
pound, compared to an average of 28 under the 2002 Farm Bill. Today, 
spot prices remain above 50 per pound.
    This wholesale price is more than double the government support 
price for refined beet sugar. And it remains far above the world price 
of refined sugar, which was recently about 29 per pound.
    Unfortunately, our company has to compete with products made with 
this world-priced sugar. It's no surprise that imports have accounted 
for a growing share of the confectionery market, especially for hard 
candy that doesn't contain chocolate, and where sugar is therefore a 
higher percentage of the total value. In fact, attached to this 
statement is an official brochure circulated by the Canadian 
Government, urging candy companies to relocate to Canada because ``the 
average price of refined sugar is usually 30 to 40 percent lower in 
Canada than in the U.S.''
    In today's economy, businesses like ours face enough challenges 
without our own government deliberately forcing up the price of its key 
ingredient. It has never been more obvious that the sugar program is a 
failed policy that hurts consumers, businesses and workers. Congress 
should get rid of this anachronistic monstrosity and make real reforms 
in 2012.
            Sincerely,



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
William H. Kelly,
Vice Chairman,
Jelly Belly Candy Company.
                               attachment



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
                     Comment of Monica Kelly Wright
    Date Submitted: Thursday, May 10, 2012, 1:37 p.m.
    City, State: Hayden, ID
    Occupation: Retired
    Comment: Please pass a strong farm bill that protects programs like 
SNAP, TEFAP, and CSFP, which help provide food for millions of 
America's most vulnerable seniors.
    In 2010, 7.9 percent of households with seniors (2.3 million 
households) were at risk.
    Many households with seniors have had to choose between food and 
medical care or between food and paying for heat/utilities.
    In 2009, nearly 9 million people over the age of 50 and nearly 4 
million people over the age of 60 lived in at-risk households.
    We must ensure hunger-relief programs remain protected so that 
seniors who have worked their entire lives continue to have access to 
these vital programs.
                                 ______
                                 
                        Comment of Vickie Kempe
    Date Submitted: Saturday, May 19, 2012, 1:27 a.m.
    City, State: Phoenix, AZ
    Occupation: Florist
    Comment: The so called ``science'' behind anything other than 
Organic is killing us. The Toxic chemicals necessary to grow GMO's 
Never Ever goes away . . . And the bugs they are meant to kill are 
becoming immune so More and Different Chemicals must now be used. The 
scary part is we allow the Manufacturer of the chemical to run his own 
Safety Tests . . . ! Stupid.
                                 ______
                                 
                       Comment of Christy Kennedy
    Date Submitted: Saturday, May 19, 2012, 10:39 a.m.
    City, State: Sedalia, CO
    Occupation: Retired--formerly 20 years USDA/FNS in Child Nutrition 
Programs
    Comment: Support our small farmers and ranchers who are true 
stewards of the land. Allow farmers to save heritage seeds w/o fear 
that the large seed growers will be able to sue because cross 
pollination may have occurred from a nearby field owned by another 
farmer that now renders the seeds a product of the large seed grower.
    In the Child Nutrition Programs, update standards for good 
nutrition that are based on science--not by the special interest groups 
supporting factory farms/ranches that try to sway elected officials as 
laws are updated or written. I'm very troubled by how certain aspects 
of the meal patterns are developed.
    Require food label writers to clearly state the ingredients for a 
food item, i.e., GMO products used.
    Allow for free and unfettered sale of raw milk and other dairy 
products! Why should I have to buy a part of an animal to enjoy buying 
the dairy products?
                                 ______
                                 
                       Comment of Richard Kennedy
    Date Submitted: Friday, May 18, 2012, 2:52 p.m.
    City, State: Normandy Park, WA
    Occupation: Information Technology
    Comment: My grandparents lived on a farm until they passed and they 
never needed or asked for 1 from the Federal government. To help 
balance the budget eliminate all farm entitlements.
                                 ______
                                 
                       Comment of Samuel Kennedy
    Date Submitted: Friday, May 18, 2012, 11:12 a.m.
    City, State: Hamilton, NJ
    Comment: I would like to see a turn from the funding of large agro-
giants who do not have the American public/environment in the best 
interest. To small farms who are transparent and have the best interest 
of our great country for years to come.
                                 ______
                                 
                       Comment of Tangela Kennedy
    Date Submitted: Friday, May 18, 2012, 4:42 p.m.
    City, State: Hartford, CT
    Comment: Because I am a diabetic and I need certain foods to eat. 
My SNAP benefits help me get the things I need like fruits, vegetables, 
juice with no sugar added. And without those certain foods it could 
cause my diabetes to be not so good. I wouldn't be in good shape at 
all. Thanks Congress.
                                 ______
                                 
                      Comment of Evelyn Kennenwood
    Date Submitted: Friday, May 18, 2012, 12:05 p.m.
    City, State: Syracuse, NY
    Occupation: Retired Teacher
    Comment: It is so important that small independent farmers by 
encouraged. Large agri farms use methods that encourage mono cultures 
which are at high risk of failure without use of chemicals which are 
destroying our health and environment. Support methods that support 
diversity, independence, and health.
                                 ______
                                 
                         Comment of Lois Kennis
    Date Submitted: Friday, May 18, 2012, 1:07 p.m.
    City, State: Rochester, MN
    Occupation: Office Support, U of M Extension, Farm to School and 
Nutrition Programs
    Comment: In order to address our country's obesity epidemic and 
provide access to healthy food for all, it is time to stop subsidizing 
large commodity crops. We need to invest in building local and regional 
food and agriculture systems that reduce dependence on oil and 
chemicals. Organic and smaller farms can feed our country. Citizens, 
farmers, suppliers and school nutritionists will need to be taught, but 
the results will be worth it. Stop the subsidies to commodity crops, 
and invest in building local food systems to stimulate our economy and 
provide quality whole foods that are less processed and more nutrient 
dense. Smaller farms and grass-fed animals will also reduce water 
pollution and stimulate tourism by cleaning up the countryside. The 
country will smell good again. Thank you.
                                 ______
                                 
                         Comment of Diane Kent
    Date Submitted: Saturday, April 28, 2012, 7:20 p.m.
    City, State: Phoenix, AZ
    Occupation: Director, Payroll
    Comment: Any Farm bill needs to be created to ensure that only 
organic and humane farming is the complete requirement. We need to 
establish egg, dairy, meat, fruit and vegetable farmers and producers 
who use 100% non chemical and free roaming practices. This is needed 
for a healthy food intake for our children.
                                 ______
                                 
                        Comment of Rebecca Kent
    Date Submitted: Friday, May 18, 2012, 8:22 p.m.
    City, State: Florence, OR
    Occupation: Unemployed Nutritionist/Chef
    Comment: Please make the right decision for our entire society's 
future. Please don't give everything to those who need it least, give 
it to those who need it most and those who will benefit most from it 
(not necessarily in the bottom line, but in life!).
                                 ______
                                 
                          Comment of Zach Kent
    Date Submitted: Friday, May 18, 2012, 10:50 a.m.
    City, State: Jefferson, MA
    Occupation: Student
    Comment: Excessive use of petroleum-based pesticides, herbicides, 
and fertilizers that poison our water, deplete our soil, and damage our 
health; excessive capital inputs that drive farmers into debt and 
reduce rural employment; and a huge loss of biodiversity that threatens 
the future of agriculture itself--this is not the way to grow an 
effective, sustainable, healthy, and equitable food system. We need to 
change the way we do things TODAY, or explain our selfish weakness to 
our children when they are left to deal with the consequences.
                                 ______
                                 
                        Comment of Susan Kepner
    Date Submitted: Friday, May 18, 2012, 7:20 p.m.
    City, State: Hampton, NH
    Occupation: Retired Cosmetologist
    Comment: Any new bill Must provide protection and encouragement for 
organic farmers. Research $$$ for organic plants and nonchemical 
pesticides should be continued, not cut out! Bees are dying and it is 
more than likely that chemicals used in farming are causing it! It also 
needs to help out new small farmers so that we don't end up with a lack 
of competition. Big Corporate Farms do Not need the huge subsidies! 
Fraud within the system must be prevented and insurance be monitored so 
that large corporate farms and insurance companies do Not get huge 
payouts at the expense of the taxpayer! Please have the courage to make 
Real Reform!
                                 ______
                                 
                       Comment of Valery Keramaty
    Date Submitted: Saturday, May 19, 2012, 11:39 p.m.
    City, State: Katonah, NY
    Occupation: Information Technology
    Comment: Take care of U.S., the people that eat the food, not the 
corporate producers who are willing to risk our health for their 
profit. We need pesticide free, GMO free local produce. Get rid of the 
food deserts in our country and encourage small farmers.
    Agricultural policy must focus on adopting best agricultural 
practices that put the health of its citizens, the land and the 
livelihood of farmers and farm workers over the interests of industrial 
agriculture lobbyists.
    I Support:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4.Maintaining the EQIP Organic Initiative.

    Thank you for working to protect everyone's health by conserving 
our farmland and protecting our supply of local organic produce.
                                 ______
                                 
                         Comment of Susan Kerr
    Date Submitted: Friday, May 18, 2012, 1:20 p.m.
    City, State: Pittsburgh, PA
    Occupation: Social Worker
    Comment: Please fully fund SNAP. I see everyday how many people do 
their part to support the private hunger safety net. Cutting this 
program will send people straight to over-exhausted programs. We cannot 
balance our budget on the backs of the most vulnerable--children, 
seniors, disabled Americans who somehow survive on $1.40 per meal. It's 
immoral to ask them to bear this burden.
    Government's responsibility to all should include basic safety net 
programs. Do not allow American to starve. Thank you.
                                 ______
                                 
                        Comment of Lucas Kershaw
    Date Submitted: Saturday, May 19, 2012, 7:17 a.m.
    City, State: Bellevue, NE
    Occupation: Composer
    Comment: Organic farming needs more support. People are getting 
more and more sick today because of the crap that they are ingesting 
which has been genetically modified. The best way to lower health care 
costs is to promote healthy organic eating.
                                 ______
                                 
                      Comment of Margaret Kertess
    Date Submitted: Friday, May 18, 2012, 10:41 p.m.
    City, State: Locust Grove, VA
    Occupation: Retired
    Comment: We need a farm bill which is a healthy food bill for all 
Americans. The bill should provide funding for all conservation 
programs and tie insurance subsidies to compliance with conservation. 
The bill should fully support local foods, farmers, and jobs, as well 
as beginning farmers and ranchers. The bill should provide full support 
for organic farming. The bill should not put money in the pockets of 
big commodity farmers or insurance companies.
                                 ______
                                 
                        Comment of Chestina Kidd
    Date Submitted: Friday, May 18, 2012, 8:05 p.m.
    City, State: Louisville, TN
    Occupation: Unemployed
    Comment: I am a disabled veteran and I would appreciate it if you 
would not cut funding. I receive disability and yet I do not qualify 
but many are worse off than me. Please keep the funding.
                                 ______
                                 
                       Comment of Susan Kierstead
    Date Submitted: Friday, May 18, 2012, 5:09 p.m.
    City, State: Amherst, NH
    Occupation: Horticulturist
    Comment: Agrifarming is harmful to the environment and we all lose 
in more ways than one. Please do all you can to encourage sustainable 
farming, and quit the free giveaway of taxpayer money to huge farms.
                                 ______
                                 
                         Comment of Chip Kiger
    Date Submitted: Friday, May 18, 2012, 10:47 a.m.
    City, State: Eugene, OR
    Occupation: Retired Teacher
    Comment: Recommendations:

    1. Require labeling of all GMO foods

    2. Ban the use of neonicotinoid pesticides pending thorough field 
        testing of these products conducted by research teams not 
        affiliated with the pesticide industry

    3. Provide tax credits to farms where at least 3% of cultivatable 
        land is devoted to pollinator friendly plant diversity zones 
        where a wide array of different flowering plants provide nectar 
        and pollen for insects.
                                 ______
                                 
                      Comment of Kim Kilchenstein
    Date Submitted: Friday, May 18, 2012, 2:45 p.m.
    City, State: Cambridge, MA
    Occupation: Healthcare
    Comment: It is time to stop funding the poisoning of our Earth, 
air, and water. It is Past Time to stop funding insanely cruel and 
inhumane factory farms, which torture animals throughout their 
lifetime.
    Use funds from American taxpayers to support Organic farmers and 
farming, Non-GMO crops, and Free Range animal farms. I do not want a 
penny of my money to be funneled into Monsanto corporation's 
agricultural ``solutions'', which solve no problems, just create worse 
ones: such as poisoning our land, air, water wildlife, and destroying 
our health--and creating disease and mutations in our shared ecology.
    I also do not want a penny of my money funneled toward factory 
farms--this is a despicable industry, which tortures conscious living/
feeling animals for profit. Our nation has no honor left as long as it 
supports this industry, or even allows it to exist.
    There is no more fooling the American public. We see your 
priorities, your ethics, and your integrity by the choices you make--
and we are watching to see how well you represent our deepest values of 
decency and humanity.
                                 ______
                                 
                        Comment of Patrick Kiley
    Date Submitted: Friday, May 18, 2012, 12:16 p.m.
    City, State: Ridgewood, NY
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Hi--I grow food in New York State. Please protect land and 
fund programs to support young farmers working in sustainable 
agriculture, particularly small and medium size producers in their 
first 10 years. I have found these new professionals are the backbone 
of the small towns in NY State and offer the promise of food security 
into the future that does not need to be subsidized at the same vast 
amount that currently goes to wasteful corporate agriculture. Thank 
you.
                                 ______
                                 
                       Comment of Maggie Killeen
    Date Submitted: Friday, May 18, 2012, 9:58 a.m.
    City, State: Prescott, WI
    Occupation: Teacher, Mother, Wife
    Comment: Please do not allow GMO, pesticides, and such without 
notification to me, the consumer. I do not want to eat artificial food 
that has been changed from its original form.
                                 ______
                                 
                      Comment of Deborah Killinger
    Date Submitted: Friday, May 18, 2012, 11:19 p.m.
    City, State: Filer, ID
    Occupation: Inspector
    Comment: As a concerned citizen, we need to keep laws in The baby 
needs to get tested against Tim's DNA place to assure good health for 
everyone. We do not need spending cuts on organic foods and other 
healthy foods.
                                 ______
                                 
                     Comment of Carol Killingsworth
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: Fall City, WA
    Occupation: Audiologist
    Comment: It's time to subsidize healthy foods for our populace 
rather than the damaging foods that are turned into processed ``junk''. 
If we want a non-political answer to our health care crisis, then make 
fruits and vegetables affordable and readily available. A revised farm 
bill would be the foundation of the beginning to reducing obesity and 
expensive, chronic health problems in our nation. This is so simple--we 
just need legislative courage.
                                 ______
                                 
  Submitted Statement by Michael Kilpatrick, Kilpatrick Family Farm, 
                          Middle Granville, NY
    Members of the House Agriculture Committee, thank you for the 
opportunity to submit testimony for the 2012 Agriculture Bill. I am 
twenty-four and a first generation farmer. I've wanted to farm since I 
was 6 years old. My family has pictures of me standing in my first 
garden, grinning from ear to ear, holding the first cucumber of the 
season. I started farming commercially with my brother when I was 
fourteen, raising a variety of domesticated fowl, hatching the eggs, 
and selling the young. When I was sixteen, we realized that vegetable 
production was more profitable and sold the hatchery business. As the 
vegetable farm grew, we rented more land, put up more greenhouses, and 
hired more employees.
    Now, in our eighth year of commercial production, we have expanded 
to selling retail at three large farmers' markets (2 year-round), have 
a retail CSA (Community Supported Agriculture) supplying almost 300 
families, and sell a limited amount of produce wholesale. We have \1/3\ 
of an acre of covered (greenhouse and hoophouse) production, raise 
twelve acres of vegetables, and manage over sixty other acres in a 
mixture of pasture and woodlot for our laying flock, pastured poultry, 
and pork. The farm grosses well over $300,000 per year, hires six full-
time and twelve part-time employees, helps support six different 
families, and has helped put five employees through college. This is a 
testimony to the viability and profitability of small, organic farms. 
The farm has become internationally known as a leader in year-round 
vegetable production and high-tunnel innovation, allowing me to travel 
across the country and into Canada to speak about the way we farm.
    Our business, as well as the organic market, is growing rapidly, 
with double digit growth every year. We get requests on an almost 
weekly basis to begin a relationship with another farmer's market, 
local school, wholesaler, restaurant, or food coop. We have hit our 
limit in land, infrastructure, and what we can manage as a small, 
family-run operation. We get an average of ten job inquiries for every 
open position on the farm. I get twice as many speaking requests as I 
can reasonably fill. People are hungry for clean, safe, locally 
produced food and will spend more money and more time to find and 
purchase it.
    What challenges do we face and what keeps us up at night? What 
should the next farm bill focus on to bring about real, effective 
change and make farms affordable once again?
    Regulation: From the FDA to the EPA to the DEC to the USDA, we are 
constantly trying to keep up with the latest codes, rules, and laws. 
From worrying about how much irrigation water we are using and where 
we're pumping it from, to the latest poultry processing regulations, to 
the new Food Safety Modernization Act, the regulations that U.S. 
farmers are subjected to has reached a critical level. The fact that 
the government feels that it must regulate direct producer-consumer 
sales is wrong. Many consumers now take the time to research where 
their food is coming from, how it is grown, and can establish a 
relationship with their farmer. They should have every right to 
purchase what they feel is in the best interest of their family's 
health and wellness.
    Farmer Education: When we got started in farming, we received help 
from many sources. Two in particular stand out: SARE (Sustainable 
Agriculture Research and Education) and our local extension agents. 
Both were key to getting us off to a good start. When we're researching 
a new cover crop, looking for a new way to grow a vegetable, or just 
need some data, SARE has been the place to go. Even now, we research 
their database whenever we face a new or challenging problem. Our local 
extension agents have been an amazing resource to help us with 
personalized information and ideas. They were with us through the late 
blight of 2009 and the flooding of 2011, bringing seasoned, experienced 
advice to help us make the tough decisions about our crops. Over the 
last couple of years, both of these programs have had funding cuts 
which has decreased the availability of information and field agents. 
As organic agriculture changes, and as localized, year-round vegetable 
production becomes more prevalent, there are many questions that need 
good answers and many ideas that we would love to research. We just 
lack the time and resources to do it.
    Farmland Preservation: Part of America's greatness is in its 
amazing soil. It fueled the Westward Expansion, and even now its 
products are a major part of our exports and competitive edge. Good 
farmland is not cheap and it is being gobbled up by development 
companies at an alarming rate--over 1,200,000 acres in 2011 alone. That 
is 1,200,000 acres that will probably never be farmed again, that is 
forever lost to urban sprawl, shopping centers, or factories. While 
these need to be built too, there is plenty of space that is not on 
prime agricultural soils. As a young farmer who rents ninety percent of 
the land we farm, we personally feel the lack of good land available to 
us. Currently, we rent parts of four different farms, with leases 
ranging from a handshake to a 3 year signed lease. None of these 
relationships are sustainable, and until the prices of good 
agricultural land drop to a reasonable level through the help of 
conservation easements, we will still be laying awake at night, 
worrying about losing the land we have worked so hard to make 
productive.
    So what can you, our elected officials in Washington, do to make me 
a better farmer and help me feed our part of this great nation? How can 
you work to make the honorable profession of farming an easier field to 
enter and farmland more accessible to those who love the land and wish 
to steward it?
    Food safety should be testing based, not infrastructure based. 
Requiring a certain type of infrastructure and having a ``one-size-
fits-all approach'' creates prejudicial hardship on smaller operations 
and stymies new farmers and producers. Saying that we have to have a 
million dollar processing plant before we sell 1 pound of beef to our 
neighbor is a huge impediment to food safety, sustainability and 
profitability. Why would safety be a part of this statement? When you 
have 1,000 cows being processed at a plant each day, the probability of 
cross-contamination is much higher than if you have ten. The reach of a 
foodborne illness outbreak for a local farm versus a nationally-based 
conglomerate is much less.
    The government should pay for all testing to remove the financial 
burden on small farms. Testing must recognize the difference between 
pathogenic and non-pathogenic strains of contaminants. There is a 
difference in strains of E. coli. Some are normally found in your gut; 
some will kill you. Condemning product because it has E. coli in it 
without testing for the specific strain is not only wasteful but wrong. 
If (and only if) pathogenic contaminants are detected, infrastructure 
should be required, but only the amount necessary to correct the 
problem.
    Unregulated direct producer to consumer relationships should be 
allowed. When you put the human aspect of a food transaction back into 
the equation instead of food being just another PLU or feeling that 
your product is just another cog in the food machine, growing food for 
your customers becomes almost a sacred trust. Remember, it's the 
spinach fields producing truckloads of spinach a day, the melon farms 
producing hundreds of thousands of melons a week, and the beef plants 
processing thousands of animals a day that are the cause of major 
illness outbreaks, not the small family farms selling locally to 
neighbors and friends. When you bring transparency and an open door 
policy back into the food transaction, everyone benefits.
    Crop production and experimentation should be encouraged through 
research grants, extension, and land-grant universities, not government 
subsidies. All government subsidies should be ended. If a crop needs 
price support to be profitable, maybe we are growing too much of it, or 
need to rethink how we are growing it. Subsidies encourage waste, 
gaming the system, and poor farming practices. In 2009 alone, our 
country spent $6,100,000,000 alone on direct payments, an outdated and 
fantastic system that pays a farmer, even if no crop is produced. On a 
side note, EPA ethanol mandates should be ended. It reduces the 
efficiency of engines, harms carburetors, and drives up the price of 
corn to unrealistic and reckless highs. It is a wasteful use of farm 
land and an energy neutral process. In the last 2 years, we have had to 
replace carburetors and rebuild engines on three machines on the farm. 
When we inquire the cause, it's always linked to the ethanol.
    More money needs to be spent funding SARE, Cooperative Extension 
services, and general education. The Local Farms, Food, and Jobs Act 
(H.R. 3286) should be fully funded. It has the power to change how the 
local food system works through education, grants, and research. On 
another note, land-grant universities should not be able to accept 
funding from companies that have a vested interest in the outcome of 
the the study, i.e., pesticide and fertilizer manufacturers. The 
revolving door between agricultural manufacturing companies and the 
U.S. Government needs to be stopped. This would apply, for example, to 
Michael Taylor (previously employer by Monsanto and now Obama food 
czar).
    Protecting our farmland is also vitally important. The Farm and 
Ranch Lands Protection Program (FRPP) administered by the United States 
Department of Agriculture has been a significant partner in this 
effort. The main goal of this program should be to protect at risk, 
working farmland for active agricultural production. Program funds 
should only be used for permanent agricultural conservation easements. 
Since the 1970's, almost 800,000 acres have been conserved. 
Unfortunately, however, far more than this is lost every year to 
development. It's a sad day when the cows are sold, the barns are torn 
down, the fields bulldozed, and concrete and house numbers take the 
place of corn and green pasture.
    Farming is not just another career for us. It's in our blood, our 
way of life, and a lifelong passion. We want to grow old on our farms 
and see them passed on to our children and grandchildren. We want the 
government to support us through less regulation, less intervention, 
and with the tools and research to keep us competitive and on the land. 
We want to see our land conserved and not bulldozed for the sake of 
McMansions and Wal-Mart. Let's work together to make this happen.
    Thank you for your time and the opportunity to testify. My contact 
information is below,* feel free to reach me if you have any questions.
---------------------------------------------------------------------------
    * Editor's note: the referenced information has been Redacted.

Michael Kilpatrick,
Middle Granville, NY.
                                 ______
                                 
                          Comment of Julie Kim
    Date Submitted: Friday, May 18, 2012, 2:57 p.m.
    City, State: Seattle, WA
    Occupation: Illustrator
    Comment: We need to support small farmers and organic farming 
industry by not allowing Monsanto and the like compromise these 
people's livelihood and the future of our food industry. It isn't in 
the best interest of this nation to only allow big farmers and 
agricultural industries to survive. It is wise to diversify.
                                 ______
                                 
                        Comment of Clark Kimball
    Date Submitted: Friday, May 18, 2012, 11:58 a.m.
    City, State: Asheville, NC
    Occupation: Real Estate Broker
    Comment: Heath,

    You of all representatives should understand that the small and 
family farm is important for so many reasons and that anything which 
adversely affects the farm affects the people and therefore the nation. 
Thanks!
                                 ______
                                 
                       Comment of Marlene Kimball
    Date Submitted: Wednesday, May 09, 2012, 7:50 p.m.
    City, State: Brevard, NC
    Occupation: Retired
    Comment: I am dependent on TEFAP and SNAP & barely make it with my 
$92 monthly allotment from SNAP. As you are aware, food prices have 
skyrocketed and I do try to eat healthy foods. I'm frugal and cook my 
meals at home yet I'm very challenged while trying to eat clean. Please 
do not make any more cuts to these programs as the health and welfare 
of a large majority of senior citizens and children depend on them.
                                 ______
                                 
                         Comment of Kim Kimble
    Date Submitted: Friday, May 18, 2012, 12:12 p.m.
    City, State: New Paltz, NY
    Comment: Please support the small local organic farmer on my street 
who provides healthy for, supports his family, and cares for the land 
for future generations.
                                 ______
                                 
                       Comment of Raena Kim-Geyer
    Date Submitted: Friday, May 18, 2012, 1:43 p.m.
    City, State: El Paso, TX
    Occupation: Stay-at-Home Mom
    Comment: Please Do Not take away funding--for organic foods. This 
is all we have to keep our families healthy and keep away from GMOs. I 
am very aware of the dangers of these GE foods. I wish GMOs would be 
eliminated from our fragile food supply. We desperately Need organic 
farmers for the health of this once great nation and be an example to 
other nations that organic and sustainable farming practices are of the 
utmost importance to the human race.

        ``The breakfast slimes, angel food cake, doughnuts, and coffee, 
        white bread and gravy cannot build an enduring nation.''--
        Martin H. Fischer.

            Thank you,

Raena Kim-Geyer,
Mother of two of our future citizens.
                                 ______
                                 
                        Comment of Sarah Kimmes
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Coon Rapids, MN
    Occupation: Disabled
    Comment: I have tried to live a healthy lifestyle and find it 
unbelievable that a good, firm farm bill has not been passed to support 
small farmers and organic foods. How can I have healthy choices, if 
healthy farms are unsupported. I don't want better insurance against 
``illness care'', I want better practices that promote ``well care''. 
Save us All a $$$$ or two, if the bottom line is all you are concerned 
with. Wise up, will ya? The suffering has Got to end!

Sarah.
                                 ______
                                 
                       Comment of Rebecca Kimsey
    Date Submitted: Friday, May 18, 2012, 1:27 p.m.
    City, State: Sublimity, OR
    Occupation: Retired
    Comment: There's too much big business in agriculture these days 
and not enough stewardship of the land and animals that we depend on 
for life itself. Big Ag has become a dictator and as such abuses the 
land, the animals, even the farmers. And we who rely on our 
representatives to ensure that the right thing is done, find too often 
that Big Ag controls you. Start doing the right thing for America, and 
for Oregon. Let's get a farm bill that does right by the land, the 
animals, the farmers, and the general public.
                                 ______
                                 
                         Comment of Elisa King
    Date Submitted: Friday, May 18, 2012, 9:57 a.m.
    City, State: Wilmington, DE
    Occupation: Student of Agriculture and Natural Resources
    Comment: It is time that this country start planning for the 
future. The youngest generation will be the first in history to not 
live as long as their parents due to obesity. We need to support local 
and organic farming efforts to reinstall a connection between people 
and food. As long as big agribusiness has all the control, the health 
of our people is not of concern. Subsidies for industrial farming are 
not helping the current health and economic crises. The farm bill 
should have a focus on what is best for the nation, not what is best 
for corporations. There are true costs not shown in the price of cheap 
food that are surfacing and its not pretty.
                                 ______
                                 
                         Comment of Gayle King
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: McAllen, TX
    Occupation: Broker
    Comment: Its time for the people to have a say in what we eat, we 
are becoming an obese nation, we should support measures that encourage 
a healthy food supply.
                                 ______
                                 
                          Comment of Jean King
    Date Submitted: Friday, May 18, 2012, 8:39 p.m.
    City, State: Livermore, CA
    Occupation: Retired
    Comment: Please support the Senate funding levels for Agricultural 
Land Easements, which advance the proven model of leveraging Federal 
funds through local partners to secure perpetual conservation easements 
that help keep farm and ranch lands in production, while conserving 
important natural resources.
    As a director of a local agricultural land trust, I know it is 
important to keep ag land in production.
                                 ______
                                 
                        Comment of Melanie King
    Date Submitted: Friday, May 18, 2012, 1:59 p.m.
    City, State: Boise, ID
    Occupation: Paralegal
    Comment: I am very concerned about the quality of the food that is 
currently being provided to not only myself, but to our nation's 
children. Also, no child should have to go hungry and while food stamps 
are a subject nobody wants to talk about, other than ending them, they 
are necessary for the well being of many, the most important of whom 
are children who cannot otherwise fend for themselves.
                                 ______
                                 
                        Comment of Richard King
    Date Submitted: Thursday, May 03, 2012, 4:00 p.m.
    City, State: Monroe, LA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Making the changes proposed by the House of 
Representatives would have tragic consequences for millions of the most 
vulnerable citizens of our nation. It is almost beyond my comprehension 
that this could even be considered much less enacted.
                                 ______
                                 
                          Comment of Wes King
    Date Submitted: Monday, March 19, 2012, 5:28 p.m.
    City, State: Springfield, IL
    Occupation: Nonprofit Sector
    Comment: Please use the farm bill to create a new and bold path for 
the country's food and farm system. Support the re-localization or 
America's food supply. Peak oil is a real issue that threatens the long 
term security of this country, especially our food security, we need to 
plan for a future that will include less fossil fuels and less 
financial resources by investing now in new system of food and farming 
not simply maintaining the energy intensive industrial model that 
currently dominates the food and farm systems. Support local food, 
beginning farmers, and conservation now!
                                 ______
                                 
                       Comment of Rasha Kinnaman
    Date Submitted: Friday, May 18, 2012, 10:51 a.m.
    City, State: Elma, WA
    Occupation: Homemaker
    Comment: This madness has got to stop now. I am a stay-at-home wife 
and mother to 2 children. I am a Conservative, reasonable, level-minded 
person and even I know that there are serious issues with the food that 
we produce in this country. It IS a large reason why we have an obesity 
epidemic in this country. We're killing people with the food, then 
turning around and killing them some more with the meds. The greed and 
stupidity have to stop. This is ridiculous and this is NOT the example 
that I wish to set out for my children. No thank you. PLEASE change 
this.
                                 ______
                                 
                       Comment of Yannick Kinnie
    Date Submitted: Friday, May 11, 2012, 6:41 p.m.
    City, State: Orlando, FL
    Occupation: Entrepreneur
    Comment: Support small farms, take away subsidies to large 
agribusinesses, quit undermining organics, get rid of Genetically 
Engineered seeds engineered to enslave farmers to Monsanto and 
pesticides and poison our food supply and water supply.
                                 ______
                                 
                      Comment of Christine Kintner
    Date Submitted: Friday, May 18, 2012, 1:59 p.m.
    City, State: Chicago, IL
    Occupation: Homemaker
    Comment: Please support and continue funding organic farming and 
the small farmer. Please do not cut funding for organic farming and the 
beginner farmer. In this era we need to embrace the organic industry 
and the place in the market they deserve. If nothing else, we as 
consumers deserve a choice of what foods to bring to our table. Thank 
you for your attention.
                                 ______
                                 
                       Comment of Paula Kinziger
    Date Submitted: Saturday, May 19, 2012, 7:36 a.m.
    City, State: Lake Wyllie, SC
    Occupation: Homemaker
    Comment: Please stop with all the farm subsidies . . . including 
ethanol . . . let the free market decide what's best. Stop letting the 
Federal government take over our farms as well and stop paying farmers 
not to farm. Get out of the farming business altogether because 
government ruins just about everything it touches. Get the 
environmentalists out of farming too. They're destroying this great 
country.
                                 ______
                                 
                      Comment of Sutton Kiplinger
    Date Submitted: Friday, May 18, 2012, 8:20 p.m.
    City, State: Cambridge, MA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Rep. Capuano:

    I spent my early career working in public health in Boston before 
transitioning to farming 2 years ago. I had seen enough of the havoc 
our food system wreaks on the health of Americans to believe that the 
only truly preventative work I could do on the myriad health crises 
that are bankrupting us and taking years off our lives was further 
upstream even than the public health profession itself.
    Americans are beginning to understand what food means for their 
health and their communities, and they want better. It is my sincere 
hope that our national policy can reflect and bolster these trends, 
rather than continuing to subsidize the production of crops that don't 
nourish us by corporations that systematically destroy the small farm 
economy.
    Thank you so much for your work on this issue.

Sutton.
                                 ______
                                 
                         Comment of James Kipp
    Date Submitted: Saturday, May 19, 2012, 7:31 a.m.
    City, State: Wilmington, DE
    Occupation: Systems Engineer
    Comment: Please do not stop funding for vital programs such as 
nutrition, conservation and support for organic and sustainable 
agriculture. We need to improve the health of Americans.
                                 ______
                                 
                       Comment of Justin Kiritsis
    Date Submitted: Sunday, May 20, 2012, 5:52 p.m.
    City, State: St. Clair Shores, MI
    Occupation: Sales Associate
    Comment: I am a concerned citizen of a suburb of Detroit, Michigan. 
I am concerned that Michigan and the country as a whole has not fully 
addressed a food policy from a holistic point of view. I fear that the 
small farmers are getting squeezed out, there are a record low number 
of minority owned farms, and not nearly enough non-GMO farms and Co-
ops. I also believe that the USDA and FDA need to have a stronger 
consumer mindset, and allow for certain things like raw milk for local 
farmers. While not allowing for others like GMO products rated for dog 
food getting sent overseas as food aid. Please allow for schools to 
have more flexibility of the menus, listen to the First Lady and Jamie 
Oliver. I hope that these concerns are addressed. Thank you.
                                 ______
                                 
                     Comment of Alexandra Kirkilis
    Date Submitted: Friday, May 18, 2012, 3:35 p.m.
    City, State: Austin, TX
    Occupation: Technical Editor
    Comment: Stop subsidizing GMO-commodity crops. Start subsidizing 
small, organic local farms! Processed junk should not be cheaper than 
real food! Conventional agriculture is by definition unsustainable. We 
Must move to a sustainable, organic food system, and we can't wait any 
longer. Demand humane treatment of food animals. Label GMOs, then Ban 
them! They're slowly destroying our ecosystem and we have Not done any 
testing on them to determine if they're safe for consumption!
                                 ______
                                 
                      Comment of Mark Kirkpatrick
    Date Submitted: Thursday, May 17, 2012, 1:28 p.m.
    City, State: Amarillo, TX
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 500-999 acres
    Comment: I am concerned about the crop subsidy check being 
eliminated completely. I understand producers taking a cut, but if the 
producer is to take a cut, I think food stamps and other entitlements 
should take their share of the cuts also. After all, without the farmer 
there would be no food. He should have a secure safety net for the 
amount of risk he takes.
                                 ______
                                 
                        Comment of Lily Kirsanow
    Date Submitted: Friday, May 18, 2012, 2:38 p.m.
    City, State: Austin, TX
    Occupation: Retired
    Comment: We need conservation and support for organic and 
sustainable agriculture, but corporate agribusiness has a stranglehold 
on our regulatory system and our political leaders.
    Get rid of Genetically Engineered consumables that masquerade as 
real food. We, consumers and producers, will and currently are 
suffering the ravages of that horrible science. Oh, I'm sorry . . . 
it's about the money. My mistake.
    Also, limit chemical additives to soil and plants. They are only 
creating weeds that are adapting, needing stronger chemicals. It can be 
done. Once again . . . it's about Monsanto, Dow and others like them to 
sell their poison.
    By not doing anything and folding to their influence (money) you 
are NOT representing the people.
                                 ______
                                 
                        Comment of Alison Kirsch
    Date Submitted: Thursday, May 03, 2012, 3:19 p.m.
    City, State: Fairfield, CT
    Occupation: Student
    Comment: When working on the farm bill, I urge the members of the 
Agricultural Committee to keep in mind the needs of the variety of 
individual American consumers and producers that the farm bill effects, 
rather than solely the priorities of large industrial corporations. 
First, I believe that agricultural workers should enjoy the same rights 
as other workers, such as minimum wage and protection from harmful and 
exploitive working conditions. Additionally, I think that farm-to-
school programs, including those that bring healthy local produce to 
school cafeterias, should be a high priority of the 2012 Farm Bill. 
This will have a myriad of immediate and long term effects, such as 
increasing the health of schoolchildren, stimulating regional food 
production, and increasing awareness of nutritional and agricultural 
concerns in students. In enhancing these programs, the farm bill could 
also increase the amount of grant money available for schools to 
implement gardens and garden-based learning curricula. School gardens 
have been proven to improve health and wellness of students, increase 
learning achievements, enhance life skills, encourage interest in 
agriculture, and foster cultural appreciation. Students are the future 
leaders of our society, which is why it is so important to instill eco-
literacy in them at a young age. Last, I believe the subsidy system 
should be reformed to encourage more growing of fruits and vegetables. 
Also, the reformed system should include assistance to farmers for 
running smaller-scale, closed-circuit farms that efficiently use crop 
rotation and take ecological concerns into account. In conclusion, as a 
concerned and aware college student in an urban area I feel that it is 
imperative that our farm bill be revised to take into account the 
diverse conditions of farming around the country as we work to reform 
our food system. Thank you.
                                 ______
                                 
                      Comment of Saran Kirschbaum
    Date Submitted: Saturday, May 19, 2012, 6:28 p.m.
    City, State: Los Angeles, CA
    Occupation: Retired
    Comment: The lack of healthy soil because of chemicals and GMOs is 
taking a toll on farming. Pollinators are being hurt too and without 
them there can be no healthy ecosystems. Changing weather patterns, too 
much or too little water are having negative affects also. It is 
incumbent to protect the small farms from the practices of the larger 
ones, our future depends on it. This says it all: ``Human beings are 
the only species that won't save itself because it's not cost-
effective.''--Kurt Vonnegut.
                                 ______
                                 
                     Comment of Merlin Kirschenman
    Date Submitted: Thursday, May 17, 2012, 8:22 p.m.
    City, State: Moorhead, MN
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 301-500 acres
    Comment: Keep GMO's out of our food supply. Require labeling of 
food ingredients to show if GMO's are in the food. Quit supporting 
large industrial farm operations. Create a balance and support many 
food crops, not mainly just corn and beans.
                                 ______
                                 
                        Comment of Harold Kirtz
    Date Submitted: Wednesday, May 16, 2012, 11:38 p.m.
    City, State: Atlanta, GA
    Occupation: Attorney
    Comment: I am very concerned about putting SNAP and other nutrition 
programs at serious risk of funding cuts and harmful policy changes.
    Decisions that have been placed in the farm bill threaten to cut 
nutrition assistance for millions of our most vulnerable low-income 
families, children, and seniors.
    Please change the Bill to put back all or most of the $36 million 
back into the SNAP program. We cannot put the financial concerns of the 
nation on the backs of the most vulnerable.
    As someone in the top 5% in this country, I would be willing to pay 
more in taxes. Certainly those in the top 1% must be allowed to share 
in the stakes of this country on an equitable, proportional basis.
    Thank you.
                                 ______
                                 
                         Comment of John Kissel
    Date Submitted: Wednesday, May 16, 2012, 8:18 p.m.
    City, State: University City, MO
    Producer/Non-producer: Producer
    Type: Fruits, Vegetables
    Size: Less than 50 acres
    Comment: Based on first-hand knowledge of the current state of 
farming in MO/IL, I urge your consideration of several objectives in 
creating the extremely important Farm Bill of 2012:

  <bullet> The link between conservation compliance and taxpayer 
        subsidies must be preserved and strengthened. There are, sadly, 
        too many farmers of all sizes who feel they cannot afford to 
        preserve our soil and water for future generations.

  <bullet> Programs to help and encourage new farmers, such as the 
        Beginning Farmers program are essential, as the majority of 
        American farmers, like myself, are getting too old to continue.

  <bullet> Programs to support small farmers, organic production, and 
        research and innovation are also critical.

    Our current approach to agriculture is not sustainable, and we 
desperately need a Plan B.
                                 ______
                                 
                        Comment of Andrea Kitrel
    Date Submitted: Saturday, May 19, 2012, 5:31 p.m.
    City, State: Miami, FL
    Occupation: Administrative Assistant
    Comment: Please support Real Organic farming and stop this cancer 
epidemic! In a matter of 1 year I have lost 2 people to cancer, 2 are 
battling and 2 very young artists have also lost their lives to cancer. 
Please stop poisoning our food. I believe the People have had Enough.
                                 ______
                                 
                      Comment of Janet Kitsmiller
    Date Submitted: Saturday, May 19, 2012, 6:26 a.m.
    City, State: Orlando, FL
    Occupation: Teacher
    Comment: We need a farm bill which will allow farmers to produce 
healthy food. Food which sill support the health of people and animals 
and will heal the environment and allow the bees to thrive. In order to 
do this, we have got to have sustainable organic, non-GMO farming 
practices. It is time to stop letting corrupt, greedy big-business make 
the rules for everyone just so that a few people can have more money. 
It is time to start legislating for the people and growing food that 
everyone would want to eat if they understood the health values of 
organ versus the detrimental effects of sprayed, genetically 
manipulated food.
    Please do the right thing.
                                 ______
                                 
                        Comment of Kim Kittredge
    Date Submitted: Friday, May 18, 2012, 7:46 p.m.
    City, State: Santa Maria, CA
    Occupation: Nursing Student
    Comment: As a consumer, I want my health and the health of my 
family to be your #1 priority. I will not purchase or consume GMO 
products. They are the lead chalice of this nation.
                                 ______
                                 
                       Comment of Donna Kittrell
    Date Submitted: Friday, May 18, 2012, 5:50 p.m.
    City, State: Manassas, VA
    Occupation: Artist
    Comment: We need to subsidize small organic farms to make organic 
food more economical and available to more people. Most people need to 
stretch their food dollar so they buy processed food because it is 
cheap. It is cheap because we still subsidize big AG. Subsidies need to 
go to small upstart companies, Not corporations!
                                 ______
                                 
                        Comment of Pamela Kjono
    Date Submitted: Friday, May 18, 2012, 7:47 p.m.
    City, State: Grand Forks, ND
    Comment: Future farm policy must not be allowed to become 
corporatized at the expense of small farmers and organic producers. You 
must not allow Monsanto and Dow to continue to poison through the use 
of their GMO's and use of 2,4-D on crops. Rational thinking must be 
used along with scientific data about the complications of the use of 
these products which are already being seen in fields of our farmers, 
large and small. It gives new meaning to the phrase, ``you are what you 
eat''. No wonder traces of roundup are being found in blood tests of 
human beings. Just another example of unintended consequences of 
allowing corporations free rein in the use of their products. The USDA 
must do their job to protect the citizens of this country instead of 
rubber stamping corporate requests.
                                 ______
                                 
                        Comment of Sandra Klahn
    Date Submitted: Friday, May 18, 2012, 3:36 p.m.
    City, State: Bloomington, IN
    Occupation: Project Manager
    Comment: I grew up on a farm, we did not use pesticides or 
government money. We relied on what God had provided and the knowledge 
of soil, wind, rain and seasons-knowledge that came from God. We 
understood, rotation, relationship between land, animals and people, we 
knew when to till, fertilize (with organic material) and when to let 
soil rest. Most of all, we used seeds that the Good Lord made and gave 
to us, not from any lab manipulated seed from mans creation. Our crops, 
land and animals all flourished because we believed in living within 
the means we were provided. Stop `playing' God with creation, live 
within your means.
                                 ______
                                 
                        Comment of Helmut Klauer
    Date Submitted: Sunday, May 13, 2012, 11:10 a.m.
    City, State: Gaviota, CA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: America needs a farm bill that makes healthy food widely 
available to all Americans--including schoolchildren! We must provide 
flexibility for states to use existing food procurement programs to 
purchase fresh, healthy food from local farmers and ranchers.
                                 ______
                                 
                        Comment of Jan Kleckler
    Date Submitted: Saturday, May 19, 2012, 1:11 a.m.
    City, State: Loveland, CO
    Occupation: Retired
    Comment: Food and it's quality is important to the health of our 
nation and it's people. Lack of healthy food choices impacts our health 
and well being. Protect product diversity, purity and our choice to 
choose non-GMO produce.
                                 ______
                                 
                          Comment of Amy Klee
    Date Submitted: Friday, May 18, 2012, 2:52 p.m.
    City, State: San Francisco, CA
    Occupation: Speech Pathologist
    Comment: The evidence is here. Pesticides, hormones and chemical 
fertilizers are not healthy for us. If we want to represent ourselves 
as a nation that cares for its people, what better way to show the 
world then stepping up to the plate and offering healthy organic food 
for all of our people.
                                 ______
                                 
                        Comment of Marjorie Klee
    Date Submitted: Saturday, May 19, 2012, 12:10 a.m.
    City, State: Summerfield, FL
    Occupation: Retired
    Comment: I have cancer and from research it seems as if the 
pesticides and additives to our foods are at least partially 
responsible. It seems that healthy, pesticide free food should be the 
standard, not the exception.
                                 ______
                                 
                       Comment of Paula Kleihauer
    Date Submitted: Friday, May 18, 2012, 5:18 p.m.
    City, State: Van Nuys, CA
    Occupation: Retired LAUSD
    Comment: I am retired and an active volunteer in several Social 
Justice/Food Security organizations.
    I am a University of California Cooperative Extension, LA County, 
Common Ground Program trained and certified Master Gardener. As such I 
volunteer to teach/train underserved populations (in schools, community 
gardens, shelters and through our Victory Garden Initiative, how to 
grow edibles and the importance of ``real food'' as opposed to 
''frankenfood.''
    I grow some of my own organic produce in a Community Garden and 
purchase what I don't grow from organic family farmers at local 
Farmer's Markets.
    I cannot stress to you how important it is that local, small scale 
food production that does not ``rape'' the environment and molther 
Earth, be supported and shielded from the attacks by big Agribusiness. 
I support the following from Slow Food.
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.

    Thank you.
                                 ______
                                 
                          Comment of Ann Klein
    Date Submitted: Saturday, May 19, 2012, 6:36 p.m.
    City, State: Savannah, GA
    Occupation: Retired
    Comment: Please do your homework and talk to organic farmers who 
are restoring the land rather than depleting it. You are killing 
yourselves and everyone else. How do you sleep at night knowing this?
                                 ______
                                 
                         Comment of Henry Klein
    Date Submitted: Friday, May 18, 2012, 6:57 p.m.
    City, State: Pahoa, HI
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: I'm 91 years old and grew up on an organic farm. I'm still 
alive and healthy because I ate fresh food as a child. I still grow my 
own food today. Please support small farmers and organic farmers in the 
farm bill.
                                 ______
                                 
                         Comment of John Klein
    Date Submitted: Sunday, May 20, 2012, 9:49 a.m.
    City, State: Carroll, IA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: If we do not cut down on the soil loss of our wonderful 
agricultural lands, our nation will suffer the fate of past 
civilizations. We are living high now, and producing food for the 
world, at the loss of our productivity and soil resources. But our 
great grandchildren will see huge changes as our topsoil becomes 
depleted. We are not making more soil! We need to stop thinking of 
ourselves and how rich we can become in our lifetime, and start 
thinking long-term. Food comes at the price of soil loss.
    Please quit supporting big agricultural commodity groups and 
corporate industrial agriculture. They are big enough to grow or fail 
by themselves. They are profit motivated only, and care nothing about 
our nation's resources or sustainability beyond their own greed.
                                 ______
                                 
                       Comment of Judith E. Klein
    Date Submitted: Sunday, May 20, 2012, 11:20 p.m.
    City, State: New York NY
    Occupation: Dance/Movement Therapist
    Comment: We need to have Organic Food supports Not GMO Food and 
agribusiness supports. Monsanto is poisoning our food supply. I have a 
sister who has many allergies and can eat Only Organic Food. Monsanto's 
products are contaminating organic fields rendering them non-organic. 
GMO foods not being labeled and the possibility of there being no 
organic foods available because of them means people like my sister may 
eventually have Nothing To Eat. Small family farms and organic farming 
should be supported and encouraged. Agribusiness does not need support. 
It is destroying family farms and the environments and destroying the 
possibility of having a varied, safe, nutritious foods supply.
    There should also be adequate funding for nutritious meals for 
children in school and sufficient funding for Food Stamps for everyone 
who needs them. Food Stamps should be usable for fresh fruits and 
vegetables and organic food as well as regular staples. They should not 
be used for junk food.
                                 ______
                                 
                        Comment of Kirsten Klein
    Date Submitted: Friday, May 18, 2012, 2:56 p.m.
    City, State: Monroe, CT
    Occupation: Sales
    Comment: Organic farming is the one way to reduce the obesity rate 
in America. If we start producing organic fresh food people will be 
healthier and farmers will be happier and hopefully better paid.
                                 ______
                                 
                         Comment of Molly Klein
    Date Submitted: Saturday, May 19, 2012, 2:26 p.m.
    City, State: Portland, OR
    Occupation: Stay-at-Home Mom
    Comment: Please keep farming natural. Encourage farming for 
heirloom varieties of fruits, vegetables, and grains. Encourage organic 
farming. Say no to GMOs. Say no to huge farms. Say yes to funding for 
smaller farms. Say yes to sustainable farming practices. Please, we 
can't afford not to. Our health and our children depend on the 
decisions we are making today.
    Thank you for listening.
            Sincerely,

Molly Klein.
                                 ______
                                 
                     Comment of Lisa Kleinwolterink
    Date Submitted: Monday, April 02, 2012, 4:56 p.m.
    City, State: Morris, MN
    Occupation: County Social Worker
    Comment: I cannot begin to tell you how important the current food 
programs are to help feed our local residents. I cannot imagine not 
being able to meet this need in my position as a county social worker. 
There are so many problems in my work that I cannot fix. However, one 
thing I have been able to consistently do for 22 years as a county 
social worker is to connect people with food. Please do not compromise 
on this basic provision that defines us as a community, a State and a 
Nation.
                                 ______
                                 
                      Comment of Laurie Kleisinger
    Date Submitted: Friday, May 18, 2012, 2:23 p.m.
    City, State: Edwards, CO
    Occupation: Education/Customer Service
    Comment: Please label foods that are genetically modified. Please 
label foods that are made from animals treated with antibiotics and 
hormones. Please maintain strict standards for organic foods both 
domestic and imports. I rely on you to inform me and keep me safe as an 
American citizen. Many Americans are sick and obese from tiny levels of 
toxins in their food supply that are ingested over decades. We need the 
government to allow us the freedom to make informed choices by 
requiring labeling of food and drinks. Please do your job to the best 
of your ability and with integrity to keep Americans safe.
                                 ______
                                 
                        Comment of Kenneth Klemp
    Date Submitted: Saturday, May 19, 2012, 1:13 a.m.
    City, State: Appleton, WI
    Occupation: Retired
    Comment: It is time for the American people to realize that the 
food we eat determines the health of our bodies to a greater extent and 
a farm bill that steers our country to that direction will be a plus 
for everyone involved.
                                 ______
                                 
                      Comment of Dr. R.H. Kliewer
    Date Submitted: Friday, May 18, 2012, 3:29 p.m.
    City, State: Cromwell, CT
    Occupation: Retired Ag. Prof. & Dir. of R&D for U.S. Holstein 
Assoc.
    Comment: Let's get down to Earth and realize that the family farm 
of 10 to 12 cows is impractical as well as organic dreams that cost the 
public a fortune to purchase. Industrialized farming is the future 
which includes good care of the individual animal and sound 
conservation of the product and byproducts in a conservation process 
which uses the food produced and the byproducts which can be converted 
to energy (methane).
    Get over the last hundred years and step into the future of food 
production. Quit horsing around with B.S. from the past and join the 
future of food production. We used to milk nearly 30 million cows at 
the end of WWII and now we only need about 9 million to produce our 
food needs in America and still have a surplus. We're the envy of all 
underdeveloped countries. Why go backwards. I worked 15 years with the 
Hungarian Ministry of Agriculture & Food and by 1988 they were sixth in 
average milk produced per cow as reported by FOA of the United Nations. 
We only needed 400,000 cows at that time compared to the 800,000 we 
started with. And they were exporting to their neighbors.
    Let's get our heads out of the sand and listen to progressive 
farmers and not old wives tales! The past is history, let's move 
forward!

Dr. R.H. Kliewer.
                                 ______
                                 
                         Comment of Larry Kline
    Date Submitted: Friday, April 20, 2012, 11:01 a.m.
    City, State: Pittsburgh, PA
    Occupation: Retired
    Comment: I contribute to local and national hunger programs. I 
believe that Federal anti-hunger programs should be funded at present 
levels or be increased.

Larry Kline.
                                 ______
                                 
                        Comments of Angel Klock
    Date Submitted: Friday, May 11, 2012, 5:15 p.m.
    City, State: Colville, WA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: As a biologist and small farmer I now what America needs 
in a farm bill. One that creates jobs and spurs economic growth--
support programs like the Value-Added Producer Grants Program by 
guaranteeing $30 million of mandatory funding per year. VAPG provides 
seed money to help farmers innovate in agriculture and create jobs 
while securing a sustainable path to market-based farm profitability.
    America also desperately needs a farm bill that makes healthy food 
widely available to all Americans--including schoolchildren! We must 
provide flexibility for states to use existing food procurement 
programs to purchase fresh, healthy food from local farmers and 
ranchers and not from giant corporate entities.
    America needs a farm bill that protects our natural resources and 
addresses the issues of environmental destruction brought about by 
practices that encourage and benefit large monopolies like CAFOs of all 
kinds,
    CAFOs are the single most destructive farm policy that has ever 
been enacted. The mass benefits of a few becomes the liability of the 
many. The environment, local communities and the lives of millions of 
animals are unnecessarily degraded, polluted and farm animals undergo 
extreme suffering and cruelty. Therefore please protect the 
Conservation Stewardship Program from unfair funding cuts, and improve 
it by ranking applications solely on their conservation benefits. 
Farmers count on CSP and other conservation programs to conserve soil 
for future generations, keep water and air clean, and create habitat 
for wildlife--all while farming profitably.
    America needs a farm bill that invests in the next generation of 
farmers and ranchers--guarantee $25 million per year in mandatory 
funding for the Beginning Farmer and Rancher Development Program. We 
need a national strategy and commitment to support beginning farmer and 
ranchers entering agriculture. With an aging farm population, now is 
the time to invest in the future of American agriculture by nurturing 
new agriculture start-ups.
    America needs a farm bill that drives innovation for tomorrow's 
farmers and food entrepreneurs--fund the Organic Agriculture Research 
and Extension Initiative at $30 million per year in mandatory funding. 
Investment in agricultural research is vital to continued productivity 
and innovation in growing and diverse sectors of American agriculture, 
such as organic agriculture.
    Date Submitted: Sunday, May 20, 2012, 10:39 a.m.
    Comment: We need the farm bill to take a more holistic and 
comprehensive view of our domestic agricultural development. We need to 
widely disperse our farm aid programs to stimulate small farms over the 
entire country, and REMOVE the incentives and rewards that have created 
the major consolidation in agricultural production practices. These 
practices have given us GMO seeds, CAFOs, and other monopolies that 
have destroyed communities, small farming operations, and the well-fare 
of millions of people and farm animals. These incentives have also the 
added benefit of degrading the environment and externalizing the costs 
to the public. U.S. agriculture should foster millions of small farms, 
which will improve our food quality, decrease the costs of delivery 
(improving energy policy), produce healthier and safer food, secure the 
availability of food and the resilience of our food system, and most 
importantly improve the lives of people that want to farm and raise 
crops and animals responsibly within a sustainable model of land and 
water use. In these days of concern about terrorism, foodborne illness, 
energy efficiency, costs, and quality there is no better insurance to a 
food production and delivery system other than millions of small, local 
farms. The public is behind this and its time for the government to 
follow suit.
                                 ______
                                 
                        Comment of Robert Kluson
    Date Submitted: Sunday, May 20, 2012, 7:42 p.m.
    City, State: Bradenton, FL
    Occupation: Ag Extension Agent
    Comment: Dear Representative Buchanon, I'm sending you my input to 
prioritize your analysis and actions in the development and passage of 
the 2012 Farm Bill. We are at a turning point in our country concerning 
the intersection of our agriculture sector and the rest of our society. 
Please, take the time to seriously read my input and integrate them in 
your on-going participation in the development and implementation of 
the 2012 Farm Bill:

    (1) support the expansion of the initiatives of the USDA/SARE 
        program to implement local food system development in all 50 
        states, especially infrastructure, policy, and community 
        issues.

    (2) take yourself and have your entire staff take the online self-
        tutorial about sustainable agriculture--seehttp://www.sare.org/
        Learning-Center/Courses-and-Curricula/National-Continuing-
        Education-Program/Course-1-Sustainable-Agriculture

    (3) add funding that will fully implement a separate section in 
        USDA to implement urban agriculture development to develop job 
        and economy opportunities. To this end, also allow full access 
        of urban food producers to all of the funded programs of USDA

    (4) support a 3 year gradual elimination of the commodity support 
        program and a 3 year gradual substitution of a national program 
        to support these producers for a transition to an organic and 
        sustainable system of food production. This program would 
        include Federal funding to support local food purchasing 
        programs at the state, county and municipality levels to create 
        consumer demand to make the diversification of these farms as 
        profitable as possible.

    (5) provide full funding to USDA School Lunch Program to provide 
        purchasing capacity to 25 pilot project per state to fully 
        implement Farm to School Programs

    Thanks,

Robert Kluson.
                                 ______
                                 
                        Comment of Renee Knight
    Date Submitted: Friday, May 18, 2012, 11:58 a.m.
    City, State: Madison, WI
    Occupation: Agricultural and Environmental Justice Funder
    Comment:

  <bullet> Eliminate corporate ag subsidies

  <bullet> Support family farms, especially with less than 10 employees

  <bullet> Support urban ag development

  <bullet> Support clear and fair sustainable organic regulation that 
        emphasizes small scale local production and distribution

  <bullet> Eliminate corn for fuel subsidies

  <bullet> Support farm land conservation initiatives and conservation 
        easements
                                 ______
                                 
                         Comment of Anne Knoll
    Date Submitted: Friday, May 11, 2012, 10:16 a.m.
    City, State: Post Falls, ID
    Occupation: Graphic Designer
    Comment: Please support organic and non-GMO farming. As a consumer, 
I am critically concerned about my right to choose Earth friendly 
organic, non-GMO products grown by local farmers as opposed to 
commercial farms, many of whom choose to use toxic herbicides, 
pesticides and dangerous GMO's.
                                 ______
                                 
                    Comment of Kimberly Knollenberg
    Date Submitted: Saturday, May 19, 2012, 7:36 a.m.
    City, State: South Tamwroth, NH
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Fruits, Vegetables
    Size: Less than 50 acres
    Comment: It took less than one generation for our country's 
families to go from eating low-calorie, nutritious, meals together in a 
healthy way to eating fast, empty-calorie, over-processed ``happy'' 
meals from the freezer or a pick-up window. In that time, our nation 
has become overweight and under nourished. This can be reversed in just 
as much time . . . but the time to make that change is Now. Please 
include nutrition initiatives in the farm bill, just as initiatives to 
help fund processed, empty foods were included just decades ago. Thank 
you.
                                 ______
                                 
                         Comment of Connie Knox
    Date Submitted: Friday, May 18, 2012, 8:01 p.m.
    City, State: Fort Madison, IA
    Occupation: Writer
    Comment: I do grow organic produce, but not commercially. I'm 
getting more and more concerned about the direction I see our food 
going in, with a lot of help from companies like Monsanto. Does it take 
a genius to figure out why we have an epidemic of obesity in this 
country? Or diabetes? Or heart disease? And let's not forget cancer. 
Leave our food alone, unadulterated, the way nature meant for it to be 
consumed. You will see a remarkable return to health. Yes, it might 
cost you some campaign money from the big boys, big Ag, big Pharma, 
etc. But you will win more votes at home and you will be doing the 
right thing. How important is that going to be on your final day? And I 
have a question for the people who run Monsanto. ``If you're so proud 
of what you produce, why are you fighting the labeling so hard?''
                                 ______
                                 
                          Comment of Kate Knox
    Date Submitted: Monday, May 14, 2012, 11:27 a.m.
    City, State: Seattle, WA
    Occupation: Scientist
    Comment: Please design a farm bill that will start farmers from 
farming the system and stop providing free programs, food, food stamps/
EBT, and other benefits to those who can work. I support a farm bill 
which encourages integrating environmental conservation and integration 
of natural environment with food production. The United States needs 
productive farmlands that grow healthy foods without relying on 
destroying top soil (a limited resource) and without heavy inputs of 
artificial fertilizers and toxic pesticides, herbicides, and 
fungicides. The farm bill should support local small scale agriculture 
above large-scale commercial agriculture which relies on pesticides and 
other chemicals and subsidies to make a product and/or profit.
    Thank you for your consideration of the important need for small 
scale food crops rather than more corn and soybeans.
                                 ______
                                 
                       Comment of Margaret Knuth
    Date Submitted: Friday, May 18, 2012, 2:15 p.m.
    City, State: Cedar Bluffs, NE
    Occupation: Translator
    Comment: If we cannot drink the water because pesticides etc., have 
filtered though the soil and there are no more animals living in the 
fields, how can humans consume what is being produced?
                                 ______
                                 
                      Comment of Rosemary Knutson
    Date Submitted: Friday, May 18, 2012, 8:10 p.m.
    City, State: Minneapolis, MN
    Occupation: Residential Real Estate Sales
    Comment: I'm a born and raised Minnesota farmer's daughter. I 
learned to love the land early. Please, stop the degradation and 
destruction of this precious resource. Ban GMO's! Encourage and support 
the small, independent, organic farmers. They are our lifeblood and the 
future of our civilization. Corporate farmers are destroying our land! 
In the name of greed. Please, think about our children and future 
generations. If we continue with this madness we will destroy our very 
Earth. It's not too late. Thank you for your service and for your 
attention to this issue.

Rosemary Knutson.
                                 ______
                                 
                Joint Comment of David and Betty Knutzen
    Date Submitted: Friday, May 18, 2012, 6:35 p.m.
    City, State: Waunakee, WI
    Occupation: Retired
    Comment: The SNAP program is essential now in an economy which has 
failed millions of citizens and where 20% of children go to school 
hungry. Please do not make cuts to this vital program. Also, provide 
more assistance to small producers and organic farmers. The huge 
agribusinesses receive far too much of the assistance which should be 
helping the small producers.
                                 ______
                                 
                         Comment of Joan Kocsis
    Date Submitted: Friday, May 18, 2012, 1:11 p.m.
    City, State: Buzzards Bay, MA
    Occupation: Writer
    Comment: Why does the farm bill give billions to giant corporations 
like Cargill and Monsanto to produce food that only makes people fat 
(like high-fructose corn syrup)? They certainly don't need government 
help. The bulk of subsidies should go to growers of fruits and 
vegetables--the stuff that government tells us we should be eating much 
more of--especially to those who sell locally. Please use your voice to 
ask for radical change in the farm bill. We also need to know what 
foods are genetically modified; as it is, we're running a giant 
experiment on how GMOs will affect humans and the natural world. The 
U.S. may be the largest, richest country that doesn't mandate GMO 
labeling. Even repressive China lets its citizens know what food 
contains GMOs.
                                 ______
                                 
                         Comment of Sperie Koda
    Date Submitted: Friday, May 18, 2012, 9:57 p.m.
    City, State: Leicester, NC
    Occupation: Artist--Landscaper
    Comment: My main concerns are for mandatory decent conditions for 
livestock right up to the very end and also for common sense laws 
regarding chemical additives and genetic tampering. 200 million male 
chicks killed the same day they are born is a pathetic practice for 
example.
                                 ______
                                 
                         Comment of Amy Koegel
    Date Submitted: Friday, May 18, 2012, 10:29 p.m.
    City, State: Lexington, KY
    Occupation: Self-Employed
    Comment: Our health and nutrition needs are directly impacted by 
the quality of food we consume. I support sustainable farming and 
local, organic produce to help meet my family's nutritional needs. 
Please keep our nation's health at the frontlines when discussing the 
new farm bill. Thank you.
                                 ______
                                 
                       Comment of Matthew Koelsch
    Date Submitted: Saturday, May 19, 2012, 10:24 a.m.
    City, State: Honeoye Falls, NY
    Occupation: Father/Student
    Comment: Agricultural policy should be focused on:

    1. safe, responsible, sustainable practices

    2. full, grassroots, employment

    3. production of safe and healthy food

    4. local production and distribution

    Large scale, mechanized, petrochemical-intensive operations employ 
fewer Americans, pollute and degrade our soil and water, and produce 
massive quantities of fodder to be processed into the low-nutrient, 
high calorie foodstuffs that leads to obesity and diabetes. Policies 
that favor this approach enrich corporate shareholders at the expense 
of our nation's health and the purity of our soil and water. Please 
support the alternatives: organic, local, small-scale, family and 
community-owned farms. Thanks for listening.
                                 ______
                                 
                         Comment of Ron Koenig
    Date Submitted: Friday, May 18, 2012, 7:20 p.m.
    City, State: Bellevue, WA
    Occupation: Organist/Newspaper Delivery
    Comment: I am concerned that money will go to promote large 
agricultural companies and the small sustainable farmer will be left 
out. Please do not cut funding for the food stamp program as many 
people rely upon it to be able to buy food. As the rich continue to get 
richer and more jobs leave the country, more and more people are unable 
to buy food without government programs such as food stamps.
                                 ______
                                 
                        Comment of Elaine Kokai
    Date Submitted: Friday, May 11, 2012, 11:40 a.m.
    City, State: Daytona Beach, FL
    Occupation: Retired
    Comment: Please consider all the working poor, children and women 
who rely on help with the basic need for food. Even in this wealthy 
country we have those who through no fault of their own cannot feed 
themselves. I work at a food pantry where the number of families we are 
helping has increased steadily over the last year. Please think of 
those less fortunate and help them.
                                 ______
                                 
                        Comment of Regina Kolber
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Brooklyn, NY
    Occupation: Admin. Worker
    Comment: I want fresh, healthy food without pesticides and all the 
workers involved from beginning to end should be treated well and paid 
a decent wage. If we can put people on the moon, we can pay 
agricultural workers well with safe working conditions. I'd also like 
to see a lot more attention paid to organic farming and the small 
family farm.
                                 ______
                                 
                        Comment of Susan Kollar
    Date Submitted: Friday, May 11, 2012, 6:04 p.m.
    City, State: Westlake, OH
    Occupation: Realtor
    Comment: We need the Congress to focus on protecting small farmers, 
organic farmers. We do not need to pay big farm corporation to pollute 
our environment and control what we eat. We need to protect the 
Environment for honey bees, our children. Tell Monsanto no more 
controlling what is planted.
                                 ______
                                 
                      Comment of Steve Konigsbauer
    Date Submitted: Friday, May 11, 2012, 9:27 p.m.
    City, State: Salley, SC
    Occupation: Stocker Cattle Grazing
    Comment: We need to keep American AG. strong and sustainable for 
the long haul. We must all support programs that:

    (1) creates jobs and spurs economic growth.

    (2) makes healthy food widely available to all americans.

    (3) protects our natural resources.

    (4) invests in the next generation of farmers and ranchers.

    (5) drives innovation for tomorrows farmers and ranchers. Please do 
        the right thing, our children are Humanity's reach into the 
        future and we must leave them well equipped to survive whatever 
        shall come along. Thank you.

Steve Konigsbauer.
                                 ______
                                 
                       Comment of Claudia Konkus
    Date Submitted: Friday, May 18, 2012, 1:02 p.m.
    City, State: Severna Park, MD
    Occupation: Teacher
    Comment: We need to do everything in our power to change the way 
this country eats and lives. Organic farmers are on the forefront of 
healthy living and we need to support them. Do not cut funding!
                                 ______
                                 
                         Comment of Kitty Koon
    Date Submitted: Friday, May 18, 2012, 3:50 p.m.
    City, State: Sandpoint, ID
    Occupation: Massage Therapist
    Comment: Please change the law so it requires all food producers to 
let me know what is in my food especially GMO's. I really don't want to 
have to grow all my food to make sure it is safe but I will if congress 
keeps trying to poison most of us through our food.
                                 ______
                                 
                         Comment of Harv Koplo
    Date Submitted: Monday, March 26, 2012, 9:09 p.m.
    City, State: Springfield, IL
    Occupation: Computer Consultant
    Comment: Local and regional food systems help create jobs and spur 
economic growth in rural and urban communities. Please support 
investment in this growing sector by including the Local Farms, Food, 
and Jobs Act in the next farm bill.
    The future of family farming and ranching in America depends upon 
ensuring that would-be new farmers have access to land, capital, and 
markets. Please support beginning farmers and ranchers by including 
Beginning Farmer and Rancher Opportunity Act in the next farm bill.
    Farmers depend on quality, cutting-edge research to stay 
successful--please make sure the next farm bill invests in this crucial 
work.
    Working lands conservation programs help farmers maintain 
productivity while protecting our air, water, and soil, protect these 
programs from unfair funding cuts!
                                 ______
                                 
                        Comment of Marilyn Kopp
    Date Submitted: Saturday, May 19, 2012, 1:14 a.m.
    City, State: Huntington, NY
    Occupation: Retired Teacher
    Comment: We need government support for organic agriculture and 
much more study of genetically modified foods and the use of pesticides 
on food crops Before they are allowed to come to market. The explosion 
of the number of children with autism alone tells us we are doing 
something wrong, and we don't know what it is.
                                 ______
                                 
                       Comment of Meryle A. Korn
    Date Submitted: Friday, May 18, 2012, 2:57 p.m.
    City, State: Portland, OR
    Occupation: Retired
    Comment: I am a consumer of certified organic produce and selected 
animal meats. Please do nothing to impair my ability to purchase food 
that is pesticide-free, chemical fertilizer-free, hormone-free, 
antibiotic-free, and free of any other additives that do not belong in 
the food chain.
                                 ______
                                 
                      Comment of Teresa Koschmeder
    Date Submitted: Friday, May 18, 2012, 12:17 a.m.
    City, State: Lawrenceburg, IN
    Occupation: Full-Time Homemaker
    Comment: America needs a farm bill that allows organic foods to 
thrive and become mainstream.
    America needs a farm bill that encourages the small family farmers 
to grow again.
    No pesticides, no chemicals, no preservatives no hormones on the 
animals should ever be used. Humane treatment for all the animals and 
farmers. Allow fair trading and innovation that encourages research for 
healthier foods. America should be able to feed everyone in America 
with healthy food.
    There should be plenty of support with the acceptance of science. 
No one should be able to change the facts because of their belief 
system. Thank you for your time and consideration.
                                 ______
                                 
                         Comment of Kate Kosek
    Date Submitted: Saturday, May 19, 2012, 1:28 p.m.
    City, State: Hopewell Junction, NY
    Occupation: Educator/Writer
    Comment: Let's help the small, responsible farmers to provide us 
with healthy, affordable food while supporting a healthy, bio-diverse 
environment. Supporting industrial ag is corporate welfare.
                                 ______
                                 
                         Comment of Debi Koshik
    Date Submitted: Friday, April 27, 2012, 3:26 p.m.
    City, State: Chula Vista, CA
    Occupation: Retired
    Comment: The government of this country need to make sure us low 
income people get fed before you send food off overseas for one thing . 
. . there are people starving here even in Cities like San Diego! Just 
because our income is ``middle'' we get no help and that dollar don't 
go far any more . . . make the consumer cost in America go down and the 
export cost to go up!
                                 ______
                                 
                       Comment of Johanna Kovitz
    Date Submitted: Friday, May 18, 2012, 2:28 p.m.
    City, State: Allston, MA
    Occupation: Transcriber
    Comment: I believe the U.S. government's responsibility should be 
less about supporting large agribusiness, and more about encouraging 
small independent farmers, organic farming, and opportunities for 
citizens to buy locally grown and organic produce. The aim should be to 
ensure that all Americans have access to fresh, healthful, and 
affordable food, not to make sure agribusiness stays rich by growing 
and selling things that Americans don't need, or selling commodity 
products at home and abroad while many Americans go hungry or become 
obese on a diet of junk food.
    Just one example of our wrong priorities: As a result of subsidized 
corn production, it is almost impossible to find processed foods in 
this country that don't contain high fructose corn syrup, which keeps 
Americans addicted to sugar and increases the rates of obesity and 
diabetes. The incentives in this system are all wrong.
    If any of the Representatives on this committee do their own 
shopping or cooking, they will know how much easier it is to find junk 
food in our supermarkets it is than to find quality food and produce. 
Our agriculture system should do everything possible to turn around 
this unhealthy reality. As you consider the next farm bill and as you 
meet with lobbyists from agribusiness, please don't lose sight of the 
nutritional and health needs of the American people as a whole.
                                 ______
                                 
                     Comment of Douglas Kowalewski
    Date Submitted: Thursday, May 17, 2012, 5:46 p.m.
    City, State: Lake in the Hills, IL
    Occupation: Realtor
    Comment: Stop selling out to multi-national corporations and their 
terrorist tactics. Protect the small farmer, help these small 
businesses succeed and encourage the farming of healthy, real food. 
Because politicians get wealthy by serving the masters of big 
companies, I have no hope that the Agricultural Committee will ever do 
anything that helps a small farmer. It just doesn't put enough in their 
pockets.
                                 ______
                                 
                     Comment of Kelly Ann Kowalski
    Date Submitted: Friday, April 20, 2012, 3:55 p.m.
    City, State: Cheektowaga, NY
    Occupation: Program Director
    Comment: It is so important that we protect and do not harm the 
Food Stamp program under the farm bill. In these hard times, people 
need a program like Food Stamps to have healthy and productive lives. 
The average person who uses food stamps much whether have a job that 
pays enough that they do not have to use Food Stamps. Being able to buy 
healthy food on your table is so important and it will cost the nation 
less money in the long wrong. Please do not harm this program.
                                 ______
                                 
                        Comment of Michael Kozak
    Date Submitted: Friday, May 18, 2012, 10:15 a.m.
    City, State: Pittsburgh, PA
    Occupation: College Admission Counselor
    Comment: As the committee considers the 2012 Food and Farm Bill, I 
urge you to:

  <bullet> Support small, sustainable family farms.

  <bullet> Support organic agriculture that does not harm the 
        environmental with chemical inputs.

  <bullet> Take a stand against subsidies for large scale farms that do 
        not need them.

  <bullet> Take a stand against GMOs in our food system.

  <bullet> Focus on providing access to good, local, organic produce to 
        all.

  <bullet> Support young and beginning farmers with access to land and 
        funding. There are many who want to farm, but the barrier to 
        entry is too high for most.
                                 ______
                                 
                       Comment of Constance Kozel
    Date Submitted: Friday, May 18, 2012, 2:29 p.m.
    City, State: Dallas, PA
    Occupation: Retired Teacher
    Comment: Farms are one of our most precious and indispensible 
resources. We must protect them and what is grown on them for the 
health of Earth And All Its Inhabitants.
                                 ______
                                 
                       Comment of David Kozlowski
    Date Submitted: Friday, May 18, 2012, 1:58 p.m.
    City, State: Santa Fe, NM
    Occupation: Woodworker
    Comment: The agricultural industry should be encouraged to produce 
fresh food instead of processed food. Our food right now is based on 
exploiting corn and corn products to the maximum. This has resulted in 
an explosion of carbohydrates in our food supply and has resulted in an 
obesity epidemic that especially affects the poorest members of our 
society.

        For most of history, after all, the poor have typically 
        suffered from a shortage of calories, not a surfeit. So how is 
        it that today the people with the least amount of money to 
        spend on food are the ones most likely to be overweight?

        http://www.nytimes.com/2007/04/22/magazine/
        22wwlnlede.t.html?pagewanted=all *
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.

    Iowa Senator Chuck Grassley has said: ``The agriculture industry 
has consolidated to the point where family farmers, independent 
producers and other smaller market participants do not have equal 
access to fair and competitive markets,'' he says. ``Increased 
concentration in agriculture will lead to fewer product choices and 
higher product prices for the American consumer.''
                                 ______
                                 
                         Comment of John Kozma
    Date Submitted: Saturday, May 19, 2012, 1:23 p.m.
    City, State: Charleston, SC
    Occupation: College Instructor
    Comment: Although I am not a producer, I am very interested in 
agriculture policies. I am an elected member of the Charleston Counter 
Soil and Water Conservation District Board of Commissioners, but these 
comments are my own, in no way endorsed by the board.
    I am also a member of a local CSA, and I buy organic, local non-GMO 
food when it is available and affordable. I understand that non-organic 
practices are the only practical way to produce enough food to satisfy 
everyone's needs, and that economies of scale sometimes demand that 
food be shipped long distances from farm to table. I also understand 
that genetically modified foods can be beneficial. However, there are 
known--and not yet known--problems with these practices. The use of 
chemical pesticides and herbicides leads to increased resistance among 
the species sought to be controlled. Likewise, dependence on mono-
cultures increases susceptibility to insects and diseases. There is 
also evidence that crop varieties selected for mono-cultures sacrifice 
nutritional value for high yield. Transporting farm products to distant 
processing facilities and markets requires additional expense and 
pollution. And while I don't believe, as some may, that genetically 
modified food products are inherently unsafe, I find it troubling that 
there is no requirement that they be tested more rigorously.
    By subsidizing farmers on the basis of the quantity of crops they 
produce, as all U.S. farm bills have done for at least the past twenty 
years, our farm policy makes organic, local, non-GMO choices relatively 
more expensive. I am among many who believe that many of the health 
problems in the U.S. are related to our diet, which to a large extent 
is shaped by farm policy. Yet another consequence of our current farm 
policy is increased dependence on foreign oil due to the widespread use 
fertilizers and long distance transportation of farm products. Even 
immigration is impacted by farm policy, since the export of cheap, 
subsidized farm products from the U.S. drives many farmers out of 
business in Mexico and other Central and South American countries, with 
the result that many displaced workers from those countries to seek 
employment here.
    The admonition to first, do no harm might well be applied to farm 
policy. There is no need to subsidize corn, wheat, rice, cotton, and 
soybeans--the market can effectively deal with them without government 
intervention. Even if the current subsidies are not redirected to 
organic and local production, there should at least be a level playing 
field.
                                 ______
                                 
                       Comment of Marylou Kraemer
    Date Submitted: Friday, May 18, 2012, 4:05 p.m.
    City, State: Albuquerque, NM
    Occupation: Marketing Director for a Independent Pharmacy
    Comment: This country needs good, healthy clean food. I am sick and 
tired of McDonalds and Burger King ruling Americans. I only eat organic 
and real food. Please return our country to this state. The food is 
making this nation obese and sick!
                                 ______
                                 
                         Comment of Diane Kraft
    Date Submitted: Friday, May 18, 2012, 6:16 p.m.
    City, State: Niagara Falls, NY
    Occupation: Psychotherapist
    Comment: The feeding of America and the decisions made to this end, 
requires a serious shift in our goals. It is time to think smarter 
about the healthy sustainability of our food supply.
                                 ______
                                 
                       Comment of Marylin Kraker
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: Fremont, MI
    Occupation: Retired
    Comment: It is important to support small farmers more than big Ag, 
especially organic farmers. Also to support/fund healthier school 
meals, as well as nutrition support for those in need. This is Not the 
time to cut `food stamps' or subsidies for school breakfasts and 
lunches for poor children.
                                 ______
                                 
                         Comment of Ann Kramer
    Date Submitted: Saturday, May 12, 2012, 12:26 a.m.
    City, State: Hood River, OR
    Occupation: Counselor
    Comment: We need a farm bill that supports small farmers and a 
diverse, regional food system. For far too long only the large 
producers have benefited by the farm bill. This is short sighted and 
has resulted in a food system that is leaving us with limited food 
diversity. Obesity and Type II Diabetes have grown steadily due to this 
commoditized food system. Solutions like in small farmers, regional 
food systems.
                                 ______
                                 
                         Comment of Joel Kramme
    Date Submitted: Sunday, May 20, 2012, 2:14 p.m.
    City, State: Rolla, MO
    Occupation: Retired Teacher
    Comment: Your constituent's health and well-being must be your top 
priority when setting farm policy. Just look at the increasing 
popularity of local farmers' markets and you will see a ground-swell of 
concern about people's individual health. Big Agra. needs to revamp 
their priorities or we will soon tell them, RIP.
                                 ______
                                 
                         Comment of Bruce Kran
    Date Submitted: Friday, May 18, 2012, 4:00 p.m.
    City, State: Reno, NV
    Occupation: Retired
    Comment: Organic and small farming are on the comeback because big 
ag has maximized profits without regard to health concerns. Health care 
costs too much to ignore this healthy trend. Support it.
                                 ______
                                 
                         Comment of Greta Kranz
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Sun Valley, ID
    Occupation: Consultant
    Comment: Stop promoting the use and destruction of our land, our 
farming communities, and the health of our nation by supporting 
terrible companies like Monsanto! I want the working farmer to be able 
to do just that--work, and produce true crops in the ways he/she know 
are best.
                                 ______
                                 
                       Comment of Michael Krasner
    Date Submitted: Sunday, May 20, 2012, 10:16 p.m.
    City, State: Putney, VT
    Occupation: Teacher, Hobby Farmer
    Comment: Please craft a bill that continues to provide generous 
support via SNAP for those people who continue to be hurt by our 
economic situation. Please also support measures that will allow young 
and innovative farmers to begin farming and flourish and that will 
direct aid to them and other family farmers who truly need help as 
opposed to the large, industrialized farming enterprises that do not.
            Thank you,

Michael Krasner.
                                 ______
                                 
                         Comment of C.E. Krause
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: La Quinta, CA
    Occupation: Environmentalist, Teacher, Political Activist, Artist
    Comment: Food and Farm Bill? HA! What do you think I think you're 
going to do with my input!?!
    Well, our food is unhealthy from start to stomach: whether grown 
from genetically modified seeds that have had all the nutrients 
extracted and are Round-Up Ready and filled with noxious chemicals; or 
raised in filth. crammed together, abused and tortured, force-fed and 
plied with steroids and unhealthful chemicals; our food doesn't taste 
like it should, doesn't look like it should (colorized) and doesn't 
nourish like it should.
    And, well, our farms are all run by big multinational agribusiness 
monopolies and chemical manufacturing conglomerates, subsidized by 
taxpayers; they serve the agenda of the 1%: to wipe out large 
populations who own coveted natural resources and/or are otherwise 
undesirable. [There would be no world hunger, except that it is part of 
the New World Order!]
    That's what I think. What do I want? Stop subsidizing multinational 
corporations; label GMO foods; let us know which petro-chemical 
corporations are involved (as owners, producers, etc.) and which petro-
chemicals are being forced upon us via our edibles and potables; 
regulate, regulate, regulate; start treating animals humanely and stop 
over killing; stop allowing our soil to be contaminated and our food to 
be grown in contaminated soil; and stop the pollution of our water--
rivers, streams, lakes, seas, oceans (including by the inevitable big 
oil spills and nuclear waste leakage!) and stop the watering of our 
food with polluted liquids!
    That's a start! Do these things and you'll be doing the decent 
thing, doing right by your constituents and all of (wo-)mankind.
                                 ______
                                 
                       Comment of Harold Kravitz
    Date Submitted: Thursday, May 17, 2012, 12:34 a.m.
    City, State: Minnetonka, MN
    Occupation: Clergy
    Comment: I am profoundly troubled by the proposed cuts to Federal 
Food benefits in both the House and Senate Ag Committees budgets. It is 
shameful to balance the Federal budget at the expense of those who are 
most vulnerable.
                                 ______
                                 
                      Comment of Clarence Kreiter
    Date Submitted: Thursday, May 17, 2012, 8:25 p.m.
    City, State: Iowa City, IA
    Occupation: Professor--U of Iowa
    Comment: What I see in Iowa is truly heartbreaking. So much land 
going into production and so little nature left. The rivers are totally 
polluted. This is important legislation--please put the brakes on 
refunding. This state is destroying itself by putting so much land into 
production.
                                 ______
                                 
                 Comment of Rebecca Krieger Cottingham
    Date Submitted: Friday, May 18, 2012, 11:02 p.m.
    City, State: Batesville, IN
    Occupation: Homemaker/Mother
    Comment: It's time for real reform. I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    To be totally honest, I grew up on a small farm, but my family 
never ever had any benefit from all of these subsidies, etc. . . . that 
are always discussed. All of these subsidies only go towards one place 
. . . Big Business . . . Thus, in the U.S., it is now difficult to even 
buy meat, etc. that is not produced by one of the three major meat 
producers . . . Consequently, we now have food that is so standardized 
and industrialized that it does not have the benefits and nutrition, 
nor the taste, of ``real food''.
    I am disappointed that the Senate Agricultural Committee has 
already voted to cut $4 million from organic research funding and cut 
funding to support Beginning Farmers in half. We cannot let this stand!
    At the same time, the Senate Ag Committee has voted to get rid of 
wasteful subsidy payments. It has proposed to replace it with a new 
subsidized insurance program that leading sustainable agriculture 
advocates are calling rife with opportunities for fraud and abuse. If 
course, from our past experience, this is bound to happen. Thus, why 
are we doing this once again?
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk. Thus, big business will 
once again benefit.
    According to the National Sustainable Agriculture Coalition's Ferd 
Hoefner, ``By failing to place limitations on crop insurance subsidies 
and to re-attach soil erosion and wetland conservation requirements to 
crop insurance programs, the Committee has failed to do the full reform 
that is needed.''
    We can't allow this to happen. Please help to create real reform 
and a healthy, organic future! Please do not just think of the large 
businesses that are located your districts asking for your support. 
Think of your children and grandchildren, Do you not want your children 
and grandchildren to be able to experience ``real food'' with real 
nutrition and benefits . . . rather than mass produced food? As is 
proven, this is a key to good health and less obesity . . . which 
Americans desperately need. If Americans ate more real food, then 
health care costs would decrease. Of course, once again, that would 
hurt big business.
    I personally find it affronts me that many of these policies are 
introduced and supported by males . . . who definitely don't seem to 
have the some forward thinking as mothers who worry much more about the 
future of their children, and their children. Thus, these policies are 
often made with big business in mind, NOT for the people.
    To conclude, thank you for your attention.
                                 ______
                                 
                        Comment of Susan Krivin
    Date Submitted: Friday, May 18, 2012, 9:25 p.m.
    City, State: Santa Cruz, CA
    Occupation: Custom Sewing/Tailor, Former Food Producer
    Comment: As a former food producer, I know from personal experience 
how difficult it is for small farmers to make a living, so first I ask 
that you end farm subsidies. The largest farms that need the least help 
seem to benefit most from these. Instead, I would urge you to support 
programs benefiting smaller farms serving their local communities, 
especially those of low income.
    Please strengthen, as opposed to cutting back, nutrition programs 
in this time of great economic instability. Everyone deserves access to 
healthy food, especially children.
    Last, but equally important, protect the Conservation Stewardship 
Program to insure farmers have incentives to adopt practices that 
protect the soil, water, air, and surrounding landscapes for the 
benefit of current and future generations.
                                 ______
                                 
                       Comment of Geri Kromminga
    Date Submitted: Sunday, May 13, 2012, 12:55 a.m.
    City, State: Vancouver, WA
    Comment: Our family farmers need support for their farms, 
especially when they are marketing directly to the public. Consumers 
need access to clean, healthy food grown in ways to support our 
environment, not deplete it. Family farms are much more efficient than 
corporate farms. We need to end subsidies for corporate farms.
                                 ______
                                 
                      Comment of Esther Kronenberg
    Date Submitted: Friday, May 18, 2012, 3:07 p.m.
    City, State: Olympia, WA
    Occupation: Retired Educator
    Comment: As an educated person who is aware of the current 
agribusiness model and its disastrous consequences for the health of 
the land and the people, I write to urge you to fully endorse all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286), to fully 
funding conservation programs, such as the Conservation Stewardship 
Program, and to make sure that enrollment in any new insurance 
subsidies are tied directly to compliance with conservation programs. I 
also support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236) and maintaining the EQIP 
Organic Initiative.
    Continuing to run this country at the behest and for the profit of 
the 1% who have absolutely no interest in their fellow man or the 
sustainability of the planet, but only in short-term profit is the road 
to Hell. In the end, All of us including all the living creatures with 
whom we share this Earth, will suffer. The actions of this government 
are so contrary to basic Western religious tradition that continuing on 
is a Grave Sin.
    I urge you to act in the best sense of being human--with compassion 
and common sense. Do not let our fellow citizens go hungry while 
continuing to cater to those who would rape the land for profit.
    Thank you.
                                 ______
                                 
                        Comment of Cam Krosnoff
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Wills Point, TX
    Occupation: Retired
    Comment: Politicians out of touch with the values of the American 
people; and, corporate agribusiness has a stranglehold on our 
regulatory system and our political leaders.
    Farmers and eaters across the U.S. benefit from a fair and healthy 
farm bill.
    I support:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    By failing to place limitations on crop insurance subsidies and to 
re-attach soil erosion and wetland conservation requirements to crop 
insurance programs, the Committee has failed to do the full reform that 
is needed . . . do something right for America Now . . . otherwise all 
of you will be out of office before you realize it . . . I promise.
                                 ______
                                 
                       Comment of Dianne Krueger
    Date Submitted: Friday, May 18, 2012, 8:40 p.m.
    City, State: Delafield, WI
    Occupation: Teacher
    Comment: Keep the family farm alive. We need to support new farmers 
not the huge commodity farms. Taking money away from the food stamp 
programs and giving it to large farms is wrong. Organic, sustainable 
farming is the best alternative for healthy, nutritious food for all. 
Support local farms and farmers.
                                 ______
                                 
                   Comment of Frances Krueger-Jackson
    Date Submitted: Friday, May 18, 2012, 6:52 p.m.
    City, State: Chicago, IL
    Occupation: Bookkeeper and Artist
    Comment: I feel that there needs to be more emphasis put on helping 
the small farmer rather than big Agribusinesses. Small farms and 
organic farming is better for the environment, is more sustainable, and 
ultimately better for the people and communities involved. I would also 
like to see tougher standards in long term research on the 
environmental and health effects of GMO crops as well as labeling of 
GMO foods.
    In addition, I support the full endorsement of all provisions of 
the Local Foods, Farms and Jobs Act (H.R. 3286).
    I support fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I also support the implementation of all provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236).
    And, I support maintaining the EQIP Organic Initiative.
    Your job is to protect the long term health (an I mean more than 
medical) of the people and the environment we live in not corporate 
interests (an despite what the courts may say, they Are Not people, 
they are entities with different priorities, values, and interests).
                                 ______
                                 
                          Comment of Ryan Krug
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Eagan, MN
    Comment: Steps need to be taken to pass along the real costs of 
farming. Taxes should be added to products based on their manufacturing 
process to take into account the environmental impact of production.
                                 ______
                                 
                        Comment of Robert Kruger
    Date Submitted: Friday, May 18, 2012, 1:43 p.m.
    City, State: Chicago, IL
    Occupation: Social Worker
    Comment: This Nations children & people need a future where non 
GMO/Corporate food exists. Our plant needs crops that don't rely on the 
chemical fertilizers & pesticides promoted by the Corporations! This 
Earth is fragile and those chemicals are destroying our water supply 
and when they flow into the Gulf life there.
    Someone must stand up for the people & not the Corporations. We the 
people are the ones who put you in office to voice our wishes and Not 
The Corporations!
    Thanks for your time and support.
                                 ______
                                 
                       Comment of Wendy Krupnick
    Date Submitted: Saturday, May 12, 2012, 12:20 a.m.
    City, State: Santa Rosa, CA
    Occupation: Instructor, Organic Farming and Gardening
    Comment: It is time for the farm bill to get back to its original 
intent--to keep American agriculture the strong backbone of our economy 
and protect the food security of the American people. It was not 
designed to support the huge corporate agribiz profit structure which 
has no regard for the destruction of our natural resources and the 
diverse family farm, and is producing food products that are making 
Americans sick. It is time to eliminate subsidies for corn that is used 
as a sweetener and ethanol. Instead, conservation, organic farming, and 
the local food movement must receive more support. With millions of 
Americans out of work and below poverty level, food support programs 
need to also support local farmers and a healthy food supply, 
circulating these dollars in our communities and creating better health 
outcomes for all.
                                 ______
                                 
                         Comment of Scott Kruse
    Date Submitted: Friday, May 18, 2012, 6:35 p.m.
    City, State: Fresno, CA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: 301-500 acres
    Comment: Support specialty crops, organic farming and Slow Food. 
Time is overdue to wean industrial farming off of subsidies and crop 
insurance. All crops should be climate- and soil-appropriate (you don't 
grow oranges in Montana). Restore the San Joaquin River to 
sustainability for both the watershed and growers.
                                 ______
                                 
                        Comment of William Kuehl
    Date Submitted: Tuesday, May 15, 2012, 8:16 p.m.
    City, State: Astoria, OR
    Occupation: Volunteer Pantry Manager
    Comment: Suzanne Bonamici:

    It is not time to make cuts in these programs. I know so many that 
are in hard times and not of their own doing and having to swallow 
their pride and go to pantries for the first time in their lives. it's 
bad enough that people are losing their homes. As a pantry manager I 
see the fear in these good people's eyes first hand. Please Protect 
This Life Line For The People That Need It.
                                 ______
                                 
                         Comment of Sara Kuhns
    Date Submitted: Friday, May 18, 2012, 3:45 p.m.
    City, State: West Hollywood, CA
    Occupation: Teacher, Writer
    Comment: I urge you to return to the roots of farming in this 
country. Support small, beginning, and socially-disadvantaged farmers 
and ranchers. Fund programs that support organic, sustainable, and 
local and regional farming practices--not the detached and inhumane 
mentality of corporate farms and big agribusinesses. I Beg of you to 
please end our government's support of corporate farms and big 
agribusiness. The result of their production is chemically-enhanced and 
non-sustainable farming/ranching practices--that, in the long run, are 
not good for any of us. I Plead with you to please act out of concern 
for the population of this country and not with regard to the corporate 
farming and agribusiness companies who seem to have their hands in the 
pockets of everyone on Capitol Hill. Support critical nutrition 
programs and fight food insecurity. Stop giving breaks to those who 
overproduce, those who are inhumane to food animals, those who pollute 
the environment with disregard for the delicate ecological balance. Our 
small and family farmers work hard to continue the tradition of working 
WITH the land, not raping it, to provide healthy food to the people of 
this country in a sustainable manner. Yet increasingly, they are being 
put out of business by large corporations. Please, please, please--act 
with regard for the people, the animals and the environment. Don't give 
to greedy corporations and lobbyists. Do the right thing.
                                 ______
                                 
                        Comment of Hilary Kukla
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Fort Collins, CO
    Occupation: Graphic Artist
    Comment: Please stop subsidizing food that is making our planet and 
people sick! Having a soy allergy, I have a personal connection with 
the commodity crop. My tax dollars go to the over production of a plant 
that makes me sick. Give the money to diverse farms that grow more than 
a monocrop.
                                 ______
                                 
                        Comment of Pamela Kukla
    Date Submitted: Thursday, May 10, 2012, 10:39 a.m.
    City, State: West Dennis, MA
    Occupation: Retired
    Comment: SNAP is desperately needed now more than ever as even 
average Americans, struck in so many ways by this years-long recession, 
continue to struggle to feed themselves and their families.
                                 ______
                                 
                       Comment of Jerry Kukuczka
    Date Submitted: Friday, May 18, 2012, 2:43 p.m.
    City, State: Janesville, MN
    Occupation: Unemployed
    Comment: Small farmers, and organic farmers need to be considered 
in the next farm bill . . . they and we need all the help we can get to 
keep our food safe and edible for all . . . thank you.
                                 ______
                                 
                       Comment of Walter Kumiega
    Date Submitted: Friday, May 18, 2012, 8:38 p.m.
    City, State: Little Der Isle, ME
    Occupation: Carpenter
    Comment: Sick and tired of Big Ag getting billions in subsidies 
while small family farms get nothing but grief from the FDA and USDA. 
End the subsidies, fund Food Stamps and fund programs that support 
small farms and organic farms. Stop the corporate welfare!
                                 ______
                                 
                          Comment of Amy Kunde
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: San Carlos, CA
    Occupation: Stay-at-Home Mom
    Comment: Please support the smaller family farms. Please keep our 
food supplies clean and without harmful toxic pesticides and 
fertilizers. Please help to provide clean and healthy food for the 
disadvantaged, elderly, and young.
    Thank you.

Amy Kunde.
                                 ______
                                 
                      Comment of Harold J. Kunisch
    Date Submitted: Tuesday, May 08, 2012, 2:18 p.m.
    City, State: Winter Park, FL
    Occupation: Employment Counselor
    Comment: This is a ``double sword'' situation . . . at some point 
we have to cut our spending. The taxpayers are ``not'' a bottom less 
pit when it comes to spending. I work with a lot of people on food 
stamps & I've come to the conclusion based on who gets & who does not & 
the amounts given, it is a corrupt system. All things being equal some 
get $16 (which is hardly worth all the paper work), some get $200 & 
then I see people with $500-$600-$700 a month all with basically the 
same similar situations. I am tired of people who get high amounts of 
food stamps, live on welfare, haven't worked in years & don't intend on 
doing so. It's time to take the politics out of food stamps & make sure 
only people who truly deserve them, get them . . . throw all the ``dead 
beats'' off the program, Now! . . . I support the cut in food stamps as 
tough as it maybe . . . we are going bankrupt, maybe (?) people will 
get off the couch & fend for themselves.
                                 ______
                                 
               Joint Comments of Mike and Miriam Kurland
    Date Submitted: Friday, April 27, 2012, 12:51 p.m.
    City, State: Mansfield Center, CT
    Occupation: Speech-Language Therapist
    Comment: Please protect and save our small, local farmers who are 
doing their best to keep our foods healthy, organic and free of MGO's. 
the large corporate farmers are destroying our food supply and 
mistreating animals. we need laws to protect those who care about our 
communities, our nation and the future of our world.
    Date Submitted: Friday, May 11, 2012, 12:22 p.m.
    Comment: We need a farm bill that takes away Federal funds from 
large, corporate farms that use unproven for health, safety and 
environmentally sustainable procedures including MGO's, hormones, etc. 
and instead provides funding for small, local, organic, independent 
farms that are a mainstay in our communities.
    Date Submitted: Friday, May 18, 2012 12:12 p.m.
    Comment: Protect our small local organic farms, please.
                                 ______
                                 
                        Comment of Steven Kurtz
    Date Submitted: Friday, May 18, 2012, 4:03 p.m.
    City, State: Portland, ME
    Occupation: Retired
    Comment: We are eating fossil fuel derived, genetically engineered 
garbage. The nutrition is greatly lower than organic produce. Your 
progeny are getting shortchanged. Better wake up and convince the 
public that muscle power would grow better food plus help the obesity 
epidemic.
                                 ______
                                 
                      Comment of Michael La Course
    Date Submitted: Sunday, May 20, 2012, 11:32 p.m.
    City, State: Vista, CA
    Occupation: Educator
    Comment: We need to get a sustainable agriculture in this country, 
without GMO's which have no long term health studies. I do not want my 
children poisoned, just because the status quo states as long as it is 
not proven dangerous it isn't (DDT anyone?). Please help the public be 
able to make a decision about if they want to buy GMO foods or not.
                                 ______
                                 
                         Comment of Deanna Lack
    Date Submitted: Friday, May 18, 2012, 10:26 a.m.
    City, State: Sparta, TN
    Occupation: Medical Transcriptionist
    Comment: Please include small farmers and organic farming in the 
next farm bill. Our current farming system is unsustainable and is 
damaging the health of the nation. End subsidies and replace with 
agricultural risk coverage. At least some of the money Big Ag gets 
should go to small operations, and there should be some accountability 
for environmental practices.
    Thanks for your attention to this matter.
                                 ______
                                 
                        Comment of Barbara Ladd
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Croton on Hudson, NY
    Occupation: Publishing
    Comment: We want reform! U.S. food and agricultural policy must 
focus on adopting best agricultural practices that put the health of 
its citizens, the land and the livelihood of farmers and farm workers 
over the interests of industrial agriculture lobbyists.
    Politicians out of touch with the values of the American people, 
and corporate agribusiness has too much influence over our regulatory 
system and our political leaders.
    A fair and healthy farm bill is a win for farmers and eaters across 
the U.S. Don't cut funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture.
                                 ______
                                 
                         Comment of Ryan LaDuc
    Date Submitted: Friday, May 11, 2012, 2:48 a.m.
    City, State: Saugerties, NY
    Occupation: Student
    Comment: Congressman Hinchey,

    The writing of the nation's new farm bill is an important time for 
us. There is a lot that is disturbing about our current agricultural 
system, most of which is unknown to society because we lack information 
on how and where our food is coming from. Science and economics argue 
that pesticides, herbicides, fertilizer, GMOs and monoculture farming 
on a massive scale are the only way to effectively and efficiently grow 
crops to feed our hungry nation. Those same experts claim that 
livestock should be mass-produced, injected with antibiotics, growth 
hormones, fed foods which are largely disagreeable with their digestive 
systems, and then never shown the light of day, before they are herded 
into slaughter houses after standing in their own feces for months on 
end, as the only effective and efficient way to feed our nation. I 
disagree. Not only are such methods of agriculture and livestock 
production, wildly destructive to the environment, but they are also 
destructive to our health. Research shows that mad cow disease, E. 
coli, Salmonella poisoning, diabetes and many other health issues, 
including links to cancer, and even autism, have been caused or 
worsened by our industrial agriculture system. Large scale does Not 
mean efficient, when it puts our planet, our environment, our oceans, 
our health, especially that of our children and the elderly, at risk! I 
urge Congress to demand open information on food, and better labeling, 
so that the public can hold our food suppliers responsible. After all, 
business is driven by the consumer, and it should be up to us to decide 
what we buy. If government subsidies only support massive food 
corporations, what choice do we have in our health and in our planet's 
future? Not only that, but such biased agricultural subsidies allow for 
every small-scale mom and pop farm to be squashed by the bigger 
corporations within months, both financially and legally over issues of 
GMOs.
    Government subsidies lean heavily towards corn and soy--two of the 
most environmentally destructive crops in the world. Such crops are 
then used in ethanol which is anything but sustainable or helpful to 
the environment. With such subsidies, corn is the cheapest thing for 
food conglomerates to produce, so they feed it to their livestock, 
which their digestive tracts can't handle, causing E. coli to run 
rampant, and for our meat to be filled with bacteria, and antibiotics 
to try and curb it. The corn that is leftover is then used in the 
making of chips, alcohol, soda, popcorn, butter, sugar, candy, cookies, 
fast foods, such as McDonald's, microwaveable foods, and other 
nutritionally lacking foods all of which can be sold dirt cheap due to 
subsidies. As a result of their cheap costs, these foods make up the 
primary food diets of poorer consumers, including those who are on your 
government assistance programs. What other choices do they have? Beer 
and potato chips are cheaper to buy then carrots and celery! No wonder 
our nation is continually battling a rising obesity and diabetes 
epidemic. I urge Congress to use this opportunity of a new farm bill, 
to spend money investigating the health and environmental impacts of 
our current agricultural system. I urge you to urge Congress to support 
and give subsidies to organic farms and to support small-scale local 
farms who, like any other small business trying to make it big, should 
Not be run out by monopoly corporations. They have every right to our 
free markets as the big food producers do, and they are using better, 
healthier, more sustainable, and friendly methods. I urge you to urge 
Congress to create better labeling laws so that we as consumers can 
reclaim our rights to free information, especially in regards to our 
health, and so that we can know what it is that we are eating. After 
all, like any global market, the consumers should hold the control, not 
be controlled by the producers. This is the basic principal upon which 
our economic system is based. I also urge you to urge Congress to renew 
the SNAP, TEFAP, CSFP, WIC and other nutrition programs instituted by 
previous bills. These programs and initiatives are necessary for the 
stability of our nation. In these times of economic struggle and 
hardship, health should not be put on the back-burner and neither 
should the hunger of 1,000s of poor families. There are many Americans 
in need of food assistance and programs such as these are their only 
hope in many cases. However, I hope that Congress can come to 
understand, that such programs are only effective if they allow for the 
recipients to purchase healthy foods, not beer and potato chips, which 
add to national health problems and consequently, healthcare issues. We 
can't simply continue food assistance, we have to specify what foods 
are supported and subsidized, and allowable for purchase by these 
systems.
    And we all reserve the right to know What It Is That We Are Buying. 
What we eat is who we are, and we all need to realize that more, and 
act in our own interests to better our food market. We the people, 
humbly in your hands Congressmen, and I ask that you heed our cries for 
change and help our nation move towards a better, brighter, healthier, 
more sustainable future. Our country's agricultural system needs some 
serious restructuring and it starts here!
                                 ______
                                 
                        Comment of Shawn Laduke
    Date Submitted: Friday, May 18, 2012, 10:47 a.m.
    City, State: Sheboygan, WI
    Occupation: Self-Employed Yoga Studio Owner
    Comment: I support organic farming! I do not want to each food that 
has been altered, sprayed with herbicide, pesticide or any chemicals 
that have been shown to cause cancer in animals. Please support local 
small farmers that give a shit about the environment and aren't in it 
for the money. They need jobs too!
                                 ______
                                 
                       Comment of Michelle Lafaye
    Date Submitted: Saturday, May 19, 2012, 8:57 a.m.
    City, State: Grants, NM
    Occupation: Teacher
    Comment: Have our leaders all gone mad and lost all forms of any 
moral compass and common sense?
    Why does the government insist on supporting the likes of the mega 
agricultural industry through subsidies? Our food is poison! It is 
really that simple. You are an accomplice poisoning a massive number of 
people . . . perhaps that is the goal. But, more than likely, it is a 
deeply embedded greed where all the dots connect on the money trail. 
The government does not represent the people any longer but it does 
represent corporate interests completely which is wrong! It is wrong 
even more so when people's health is placed at risk due to preference 
for corporations over people.
    It makes no sense that government would, at this time in our 
history. with the knowledge we now possess, even consider obliterating 
conservation, and stewardship programs. Local organic farmers and small 
growers need to be a part of our nation's sustainable food growing 
programs. New and small farmers and growers need the opportunity to 
begin to farming again. We may even need to create homesteading for 
organic growers so they may have the opportunity to grow crops again. 
They do not need loans . . . they need some of the subsidies which are 
given to the Mega Agricultural Industry.
    Farmers grow the gift of health for all of the people. Government 
policies of past have created this mess we are in by basically ruining 
farmers through the loan system for equipment, buildings and the 
methods the government demanded.
    It is ridiculous to believe that a farmer is going to quickly 
rebound from a flood, drought, insects, tornado, late frosts, and etc. 
Farmers must deal with nature as it comes . . . it doesn't fit into our 
neat little boxes which the government loves to create. We don't need 
pesticides in all of our food, or artificial chemicals fertilizers, or 
Genetically modified crops, Bigger is not better. Bigger is out of 
control and the risks are to great.
    Organic local farmers take great pride in their crops. They know 
their customers on a personal basis and vice versa. If a farmer is not 
meeting standards of cleanliness and high quality farming practices the 
farm will either have to change or end up out of business. Locally 
people have more control over their food and word passes quickly 
between people when there is a problem.
    What can you do to help the situation? You can support small 
farmers by supporting the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I would also like to see the USDA, FDA, meet the California 
standard and definitions for Organic foods.
    I would like for Monsanto be closed down. They do not deserve the 
honor of being in business, for they are the major contributors to the 
poisoning of our lands, waters, and the people of our nation and 
others. It began with their ``harmless'' DDT, Dioxin, Agent Orange, and 
now GMO crops which control the market in corn, soy, cotton, Canola, 
and sugar beets.
    How is it that Monsanto got GMO foods into the market place without 
allowing full independent research into the safety. I can find research 
from other nations regarding GMO's but none in America? Why is it that 
research on this has not happened in America? How is it that they have 
been able to fight GMO labeling? How is it that when Monsanto crops 
cross pollinate with a farmers heritage seeds the farmer always looses 
in court? We really need for government to solve these problems and 
quit the petty stalemates in government.
                                 ______
                                 
                     Comment of Jioanne LaFreniere
    Date Submitted: Friday, May 18, 2012, 12:12 p.m.
    City, State: South Burlington, VT
    Occupation: Teacher
    Comment: Please support farmers who use healthy agricultural 
practices--for both human beings and for the planet. Please support 
ideas for making sure that every person in this world has enough food 
to eat.
                                 ______
                                 
                        Comment of Barbara Laing
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Chicago, IL
    Occupation: Photographer and Custom Framer--Small Business Owner
    Comment: Why are we continuing to subsidize a mega-agricultural 
industry that produces food that is endangering and possibly even 
killing our children--corn and soy = high fructose corn syrup and fatty 
processed food products that are known to be unhealthy, are heavily 
marketed to kids especially and lead to obesity and diabetes. Talk 
about skyrocketing health care costs? Very foolish and taking our 
nation in the completely wrong direction.
    Support small family farms and support more growing of health-
giving fruits and vegetables. It's not rocket science!
    Stop lining the pockets of huge corporate food interests and keep 
the interests of the American citizenry on your plate.
            Thank you,

Barbara Laing.
                                 ______
                                 
                        Comment of George Lakoff
    Date Submitted: Friday, May 18, 2012, 2:26 p.m.
    City, State: Berkeley, CA
    Occupation: Professor
    Comment: Food is central to life and health. The farm bill is 
really a Food Bill. It should be supporting organic, local farming, not 
factory farms that introduce toxics into our foods and make foods 
unhealthy.
                                 ______
                                 
                         Comment of Theresa Lam
    Date Submitted: Friday, May 18, 2012, 3:33 p.m.
    City, State: East Brunswick, NJ
    Occupation: Home Gardener
    Comment: Since we are all working towards the establishment of 
local food systems, I would like to suggest giving some type of 
offering some type of benefit to farmers that farm on microfarms. Also 
is it possible to encourage local governments to become more tolerant 
of backyard animals such as chickens, goats, etc.? And give small 
incentives for this?
            Thank you,

Theresa Lam.
                                 ______
                                 
                        Comment of Joe L'Amarca
    Date Submitted: Friday, May 18, 2012, 3:20 p.m.
    City, State: University Place, WA
    Occupation: Iron Worker/Local 9/11
    Comment: If they pass this bill, then feed the criminals that 
engineered this food/plant to start with! And then the crown of 
England, the Vatican, and the Zionist of Washington.
    This food bill should be called the population reduction by Bill 
Gates Sr.
    Natural seeds, in order to germinate them they must be kept alike 
Condition as if they were out on the field but not like in a seed 
vault.
    You can't beat nature it was here before humanity and it will be 
here when it ends and restarts, also the fact that Mother Nature can be 
present in the Universe without humanity or a license but Humanity 
can't be anywhere without Mother Nature and their license.
    Anyone of you see's God give him my e-mail and I will tell him all 
about the criminals that causes Humanity to suffer on this Planet.
            Thank you,

Joe L'Amarca.
                                 ______
                                 
                        Comment of Gwen Lambert
    Date Submitted: Friday, May 18, 2012, 10:13 p.m.
    City, State: Dayton, OH
    Occupation: Manager
    Comment: Please consider keeping the full funding of organic 
farming and also of helping new farmers to ensure a strong next 
generation of farmers. Cut subsidies to big agriculture CAFO's and GMO 
corn, soy, rapeseed, and cotton, which have not only proved to be 
inferior to natural strains of the same crops, but also continue to 
pollute our ecosystems and compromise our own health in the long run. 
Please also keep intact funding for healthy lunches for children. Thank 
you for your consideration.
                                 ______
                                 
                        Comment of Kris Lambert
    Date Submitted: Friday, May 18, 2012, 5:58 p.m.
    City, State: Kailua, HI
    Occupation: Assistant Professor
    Comment: As the resident of a state where food security has been 
90% dependent on importation of industrial agricultural commodities, I 
have experienced the effects of accidental and deliberate manipulation 
of Island access to food supplies mainland capriciousness.
    This has made me, and many Island citizens keenly aware of the need 
to protect and promote small local farmers, and move toward a more 
self-sustainable future.
    To this end I support a 2012 Food and Farm Bill that supports small 
farmers--not the huge factory farms that are currently the recipients 
of governmental subsidies.
                                 ______
                                 
                        Comment of Ida Lambrecht
    Date Submitted: Saturday, May 12, 2012, 8:23 a.m.
    City, State: El Dorado Springs, MO
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: We have a small farm with a greenhouse and small livestock 
fruit and orchard specialty crops. I want to teach kids with 
disabilities (Autism spectrum disorders) how to farm and sell at local 
farmers market for hands on skill unable to obtain in public school. I 
want to see more easily obtainable grants for these types of farm 
program.
                                 ______
                                 
                       Comment of Vanessa Lamers
    Date Submitted: Friday, May 18, 2012, 10:59 p.m.
    City, State: New Haven, CT
    Occupation: Student/Researcher/Consultant
    Comment: We need a real farm bill--we need to cut the subsidies for 
unhealthy processed food and farm feed, and we need to increase the 
subsidies and programs supporting farmer's markers, produce, and whole 
foods. Really, it's that simple. Support SNAP, don't support big 
production. Give the people what they want--fresh food. Help us build a 
real agricultural system again in the U.S.!
                                 ______
                                 
                         Comment of Tara Lamkin
    Date Submitted: Friday, May 11, 2012, 12:16 p.m.
    City, State: Skokie, IL
    Occupation: Food Scientist
    Comment: I would like to see a farm bill that has the best interest 
of our citizens at heart, rather than the best interest of the few 
giant corporations that control the majority of our national food 
system. This would mean much less subsidizing of commodity crops to 
encourage farmers to branch out into other food products that can be 
sold more locally.
                                 ______
                                 
                        Comment of Tanya LaMothe
    Date Submitted: Sunday, May 20, 2012, 7:26 p.m.
    City, State: Malta, NY
    Occupation: Volunteer/Community Member/Mom/Wife
    Comment: I believe we as citizens of the United States of American 
have a say on the food we eat, as our quality of life depends on it. My 
family enjoys the taste of our healthy, organic, naturally grown food 
from local farmers. We have the right to choose that food & know that 
the farmers we choose to support, continue to have the right to farm, 
to grow unsprayed, non-GMO, high quality food. To lose the right to 
farm, purchase & eat good, wholesome food to the control of corporate 
greed is against every Law of the Universe & that infraction will have 
a very high price for the future of America & our Earth. Countries 
around the globe are passing laws to protect their citizens from large 
corporations who don't care about the planet, the health of their 
citizens and all living things for that matter. It is the 
responsibility for you, those people voted into office & those 
appointed by the President to make wise decisions for the People of 
this Nation, not for the corporate few who are only interested in big 
$'s for a very small community of U.S. citizens. It is my hope that 
this House Committee on Agriculture remembers who they are reviewing 
info for & in the end voting for--the American People. Please hear our 
words and give us back the Hope & Trust in our government to make the 
right choices & decisions when it comes to the food of our Nation. Let 
us join those countries around the globe who are interested in 
protecting this planet and people who live on it, with much thought and 
consideration for the generations beyond. Please make your contribution 
today--good, responsible decisions for we the People of the World.
            Very truly yours,

Tanya LaMothe.
                                 ______
                                 
                        Comment of Michael Lampi
    Date Submitted: Friday, May 18, 2012, 11:41 p.m.
    City, State: Bellevue, WA
    Occupation: Software Engineer
    Comment: Farm subsidies should be eliminated for all farming 
organizations with over $1 million in revenue. Absolutely no support 
should be given for GMO crops and animals. Support should be given to 
organically grown crops and animals, and for non-aquifer depleting 
farming.
                                 ______
                                 
                        Comment of Gary Lampman
    Date Submitted: Wednesday, May 09, 2012, 7:12 p.m.
    City, State: Hendersonville, TN
    Comment: Ladies and Gentleman,

    I'm a consumer or end-user if you will. My concerns are varied but 
the most immediate concern is to stop the abuse of Antibiotics, 
Steroids, and Hormones in our food supply. Agriculture uses 8 times the 
amount of Antibiotics than Humans and another Point is these 
Antibiotics are Used on Healthy Animals Which Become Antibiotic 
Resistant and They Cause antibiotic resistance in Humans! These abuses 
have caused Humans to be Maimed and cause complications and death!
    These CFO Confined Factory Organizations need to be shut down and 
Best Practice open range methods need to be re-established. The Biggest 
threat to our National Security is Monsanto who pollutes the land with 
terminator seed that causes farmers to buy new seed each year. Then 
crushing farmers who disagree with them if they choose to remove 
themselves from land pollution. This same company has place third world 
farmers into bankruptcy and poverty. This company is no different than 
a payday loan shark. Monsanto seeds contaminate the soil and compromise 
our Food Supply! Last, GMO's need to be Labeled! We have a right to 
know where food comes from and if it is a GMO product. The FDA and the 
USDA have <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f797f7c545a5b">[email&#160;protected]</a> us on this recently. Are you going to do the same?
                                 ______
                                 
                    Comment of Marilee Lampman, R.N.
    Date Submitted: Saturday, May 19, 2012, 10:52 a.m.
    City, State: Red Wing, MN
    Occupation: Registered Nurse
    Comment: We Need To Protect Our Food Supply!
    We Cannot Allow Factory Farms And Corporate Agriculture To Control 
Our Food Supply! . . . By Contaminating Our Ground Water With 
Chemicals, Or Using Gmos In The Seed, Cross-Pollinating With Organic 
Farmers' Crops! This Must Stop!
    I Hold Congress Responsible For Protecting The American People!
    I Support:

    (1)The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    (2)Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (4)Maintaining the EQIP Organic Initiative.

Mrs. Marilee Lampman, R.N.
                                 ______
                                 
                       Comment of Rosanne Landes
    Date Submitted: Friday, May 18, 2012, 12:09 p.m.
    City, State: Harrisonburg, VA
    Occupation: Admin. Assistant
    Comment: I believe that family farms are vital to the 
diversification and localization of food without them you are dependent 
on huge agricultural corporations who have no interest in providing 
wholesome food to a community instead they are solely interested in 
profit. Do not destroy family farms.
                                 ______
                                 
                      Comment of Lauren Landfried
    Date Submitted: Thursday, May 17, 2012, 3:23 p.m.
    City, State: Affton, MO
    Occupation: Dietitian
    Comment: I would like to see a push to use SNAP at Farmer's 
Markets. This would give people who need to live off of SNAP an 
opportunity to purchase local produce that has been shown through 
research to be nutritionally superior than produce that is not grown to 
its prime. It also provides more money for the local farmers to 
continue to farm. According to a research article, farmers have had to 
decrease their labor costs, accept the possibility that they may lose 
money, and find jobs away from the farm in order to break even 
financially (Hoppe, 2010).\1\ * Let's stop this trend and allow the 
farmers to keep their job on the farm.
---------------------------------------------------------------------------
    \1\ Hoppe, R.A., MacDonald, J.M., Korb, P. (2010). Small farms in 
the United States: persistence under pressure. Economic Information 
Bulletin No. (EIB-63) 39 pp. http://www.ers.usda.gov/Publications/
EIB63/EIB63.pdf.
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
                                 ______
                                 
                        Comment of Molly Landis
    Date Submitted: Wednesday, May 02, 2012, 2:47 p.m.
    City, State: Old Greenwich, CT
    Occupation: Student
    Comment: Mr. Himes,

    I am a student at Brown University interested in the U.S. 
agricultural system. I am currently taking a class about it, and it is 
clear that the U.S. needs to work toward a more sustainable system: 
ecologically, economically, and nutritionally.
    So much of the farm bill allocates money toward food assistance 
programs such as SNAP, which is obviously important in economically 
difficult times when unemployment is high and many struggle to find 
food. The food that programs like SNAP have people buying though are 
not ideal--most of it is processed, high in sugar, fat and refined 
ingredients. Supply-side policy might be good here--help producers, 
local especially, to produce fresh vegetables and fruit and to have 
viable businesses. Also the consumer side, though--make it easier for 
low-income people relying on food stamps etc. to access fresh produce.
    We need to conserve open lands as well. Incentivize farmers and 
land owners to keep their lands free of development, and in production.
    Obviously these problems are extremely complex, and I'm sure that 
you understand them far better than I do. As my representative, though, 
I would very much appreciate if you would try to address these issues 
as best you can in working towards a more sustainable system.
    Thank you for all your hard work.
                                 ______
                                 
                        Comment of Joann Landon
    Date Submitted: Friday, May 18, 2012, 2:24 p.m.
    City, State: Ventura, CA
    Occupation: Teacher
    Comment: I want an organic farm bill. I want to stop subsidizing 
agribusiness. I want GMO's labeled. I want to my food to be grown 
organically. I want small farmers protected. I want an end to factory 
farms and corn fed hormone fed cows. I support:

  <bullet> the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286);

  <bullet> fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs;

  <bullet> the implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236); and

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you.
                                 ______
                                 
                        Comment of Arthur Landry
    Date Submitted: Tuesday, May 01, 2012, 10:56 a.m.
    City, State: Baton Rouge, LA
    Comment: The farm bill needs to incorporate a change into the tax 
code for an ``extended period (10 year minimum)'' of the encouragement 
of conserving lands for agriculture, with a modification from the 
existing, in limbo, conservation easement legislation.
    The modification would be as follow: Land placed into a perpetual 
conservation easement for ``Agricultural Use'' would allow the 
landholder to sell their ``tax benefits'' to the taxpayer of their 
choice within 48 months after the conservation easement is put in 
place.
    This in addition to conserving land for agriculture uses, 
especially smaller landowners; (600 acres and less farmers, which 
encompasses the largest number of our farm properties in the USA), 
would also act as an ``economic stimulus'' for these rural areas. 
First, the placement of a conservation easement for agriculture uses on 
land that is in agriculture use, it will allow land to stay in 
agriculture, Second, it will trigger a taxable event on land that has 
traditionally not been taxed on the ``hidden value'' useless it is 
converted to some form of developed land and thus out of agriculture, 
permanently. Third, it will allow the small landowners to play on a 
level playing field as the wealthy individuals that are conserving land 
that only the ``higher tax-bracket groups can use currently''. Fourth, 
it will trigger a re-investment by landowners into agricultural/rural 
communities throughout America. Fifth, this would make sure that monies 
intended for conserving agricultural lands do not get redirected. The 
Tax Code could limit the % a taxpayer could use of these ``purchased 
benefits'' to no more than 35% of their current tax bill. This would 
help all because in the long and short of it no reduction in tax 
revenues would be involved and it would create jobs and businesses from 
local business people.
                                 ______
                                 
                        Comment of Gisele Landry
    Date Submitted: Friday, May 18, 2012, 3:48 p.m.
    City, State: Housatonic, MA
    Occupation: Self-Employed
    Comment: Large agribusiness do not understand or care about health 
and they must not be in charge here! It is time we reorder our 
priorities with a farm policy that will put organic family farms first 
and foremost. This is foundational for a system that will truly provide 
for the health and vitality of our people and environment. This will 
benefit your family and loved ones also. We are all in this together.
                                 ______
                                 
                        Comment of Paul Landusky
    Date Submitted: Friday, May 18, 2012, 3:09 p.m.
    City, State: Appleton, WI
    Occupation: Painter
    Comment: This is about American Family Farms, not lobbyists or 
multinational agribusiness. Please consider this and vote what you know 
is right for all of ``U.S.'' and our future food security.
            Thank you, Rep. Ribble.
                                 ______
                                 
                         Comment of Abbie Lane
    Date Submitted: Friday, May 18, 2012, 6:21 p.m.
    City, State: Atlanta, GA
    Occupation: ITIL Change Manager
    Comment: Please fix the Farm bill so it will actually Help the 
organic farmers, and punish Monsanto and other GMO organizations. 
Monsanto is putting farmers out of business, and this country would not 
be where it is today without our wonderful farmers. Please stop 
listening to your greed from a big bad corporation and help the little 
man. From a concerned consumer. Thank you.
                                 ______
                                 
                         Comment of Craig Lane
    Date Submitted: Friday, May 18, 2012, 3:02 p.m.
    City, State: Santa Cruz, CA
    Occupation: Nutrition, Herbal Medicine
    Comment: We need more local grown foods, more organic safety, more 
protection for small family farmers. We need raw milk, raw cream, more 
sanity than mass produced Monsanto GMO unproven ``so-called'' foods.
                                 ______
                                 
                         Comment of Daryn Lane
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: Chapel Hill, NC
    Occupation: Intern with Student Action With Farmworkers
    Comment: I am aware that the Senate Agricultural Committee has 
already voted to cut $4 million from organic research funding and cut 
funding to support Beginning Farmers in half. I am outraged over these 
cuts.
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    I would like to see Congress' full support for:

    (1) The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (4) Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Ginny Lane
    Date Submitted: Thursday, May 17, 2012, 9:24 a.m.
    City, State: Grafton, WI
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: It is imperative that the farm bill stretches to include 
real incentives for farmers who are not using petrochemicals and 
genetically modified seed for the heath of the people and the land. We 
can no longer deny the detrimental effects of current agribusiness on 
our collective health and the health of the ecosystems we live in. The 
farm bill needs to require that big farms have risk management plans, 
conservation plans. The way to grow a healthy America is not to 
increase the quantity of cheaply grown food or to fund access to low 
nutrient grocery store food, but to strengthen local food systems and 
fund community projects involving participatory food production, 
nutrition education and access to locally grown vegetables.
                                 ______
                                 
                     Comment of Barb Langer, Ph.D.
    Date Submitted: Friday, May 11, 2012, 1:59 p.m.
    City, State: River Forest, IL
    Occupation: Scientific and Regulatory Analyst
    Comment: As a volunteer, I serve hungry people several times a 
month at the Oak Park-River Forest Food Pantry. Cutting SNAP will mean 
that even more of my neighbors will go hungry. Even families who 
receive food stamps sometimes need to come to our food pantry. Cutting 
SNAP will mean even less food for people already in poverty.
    Government wastes so much of our tax dollars. But ensuring basic 
nutrition to fellow citizens and families is Never a waste. It is Not 
negotiable. It is Always the right thing to do. How can we have a civil 
society with starvation in our midst? Folks who don't get basic daily 
nutrition are unable to contribute and eventually end up in emergency 
rooms or worse at far higher public expense than it would have cost to 
ensure their basic nutrition in the first place.
    To even contemplate cutting SNAP is to regress centuries to the 
horrors of the industrial revolution in England, when starvation in the 
midst of plenty was rampant. Remember Dickens' Oliver Twist and Blake's 
Jerusalem:

          And did those feet in ancient time
          Walk upon England's mountains green
          And was the holy lamb of God
          On England's pleasant pastures seen

          And did the countenance divine
          Shine forth upon our clouded hills
          And was Jerusalem builded here
          Among those dark Satanic mills

          Bring me my bow of burning gold
          Bring me my arrows of desire
          Bring me my spears o'clouds unfold
          Bring me my chariot of fire

          I will not cease from mental fight
          Nor shall my sword sleep in my hand
          'Til we have built Jerusalem
          In England's green and pleasant land

    We're one vote away from a revival of those horrors here, such as 
WE have not seen since the Great Depression.
    Please don't cut SNAP.
                                 ______
                                 
                      Comment of Charles Langford
    Date Submitted: Tuesday, May 15, 2012, 11:24 p.m.
    City, State: Corvallis, OR
    Occupation: Retired College Teacher
    Comment: I believe people should not go hungry, here in the U.S. or 
anywhere in the world. In this country we should increase the SNAP 
program as well as the program that supplies food banks. The stress 
should be on providing nutritious food, not on getting rid of 
agricultural surpluses. Expansion should also be made so the SNAP 
program could be used at farmers' markets all over the country. Thank 
you for your attention to this matter.
                                 ______
                                 
                       Comment of Shannon Langham
    Date Submitted: Friday, May 18, 2012, 6:43 p.m.
    City, State: Austin, TX
    Occupation: Homemaker
    Comment: I am a suburban homemaker. The more I learn the more I 
must demand that the industrialization of our food sources, the 
destruction of the small farm and the dismantling of our freedom to 
choose something as simple as raw milk versus pasteurized milk. My 
grandfather was a dairy farmer in Mexia, TX. My great-grandparents were 
share-croppers in Caldwell County, TX. I'm appalled at what I am 
learning about where/how our food gets to the table, and concerned that 
government no longer represents people, but corporations. Please vote 
to protect our rights to sustain ourselves in the same manner that has 
been done since the beginning of time. Do not vote to make the masses 
dependent upon the profit margins of industrialized food. Thank you for 
your time.
            Respectfully,

Shannon Langham.
                                 ______
                                 
                       Comment of Judith Langhans
    Date Submitted: Friday, May 18, 2012, 2:13 p.m.
    City, State: San Diego, CA
    Occupation: Retired
    Comment: The farm bill comes up so infrequently, we have to get 
this right. It is time for the citizens to be heard. We want subsidies 
for Good food; not Monsanto type and non-organic foods.
                                 ______
                                 
                     Comment of Elizabeth Langhorne
    Date Submitted: Friday, May 18, 2012, 12:14 p.m.
    City, State: Lexington, VA
    Occupation: Retired
    Comment: Please consider the importance of preserving the small 
family farmer. More and more people are becoming aware of the value of 
their products to personal welfare and to preserving many of the values 
that helped this country grow. Monsanto and the large commercial farms 
are undermining health while the small farmer contributes to the well-
being of the Earth as well as of its people.
                                 ______
                                 
                      Comment of Margaret Langteau
    Date Submitted: Friday, May 18, 2012, 8:06 p.m.
    City, State: Plano, TX
    Occupation: Health Coach
    Comment: The current health crisis and obesity epidemic is a direct 
result of corporate influence in Washington. My job is to re-teach 
people on what it means to eat healthy. The current processed food 
system is creating our healthcare unsustainable cost situation and a 
nation of sick people. Help me do my job by making it cost more for 
people to make unhealthy choices and less to eat good fresh organic 
whole foods.
                                 ______
                                 
                        Comment of Susan Lannin
    Date Submitted: Tuesday, May 15, 2012, 10:46 p.m.
    City, State: Chicago, IL
    Occupation: Community Volunteer
    Comment: The farm bill gives us the opportunity to shape the 
health, equity, and long-term environmental sustainability of our 
American farm and food system. In shaping the omnibus bill, please 
include the provisions currently captured in the following three marker 
bills:

  <bullet> The Local Farms, Food, & Jobs Act (H.R. 3286/S. 1773)
      This bill sponsored by Rep. Chellie Pingree (D-ME) & Sen. Sherrod 
        Brown (D-OH) will encourage growth in our economy by:

    <ctr-circle> Creating economic opportunities for farmers and 
            ranchers through local and regional markets.

    <ctr-circle> Improving processing and distribution infrastructure 
            for local and regional agriculture.

    <ctr-circle> Expanding access to healthy food for consumers, 
            including underserved communities.

    <ctr-circle> Providing research, training, and information that 
            farm entrepreneurs need succeed.

      More info: http://sustainableagriculture.net/our-work/local-food-
            bill/

    Please support local food, farmers markets, and small farmers by 
becoming a co-sponsor of the Local Farms, Food, & Jobs Act.

  <bullet> The Beginning Farmer & Rancher Opportunity Act (S.1850/H.R. 
        3236)
      This bill sponsored by Rep. Walz (D-MN), Rep. Fortenberry (R-NE), 
        and Sen. Harkin (D-IA) invests in the next generation of 
        American producers by:

    <ctr-circle> Enabling access to land, credit, and crop insurance 
            for new producers.

    <ctr-circle> Assisting new producers to start and strengthen new 
            farm and value-added businesses.

    <ctr-circle> Helping new producers become good stewards of the 
            land.

    <ctr-circle> Providing training, mentoring, and research that 
            beginning farmers and ranchers need to succeed.

    <ctr-circle> Conducting outreach on agricultural job opportunities 
            for military veterans.

      More info: http://sustainableagriculture.net/our-work/beginning-
            farmer-bill/ 

    Please support beginning farmers and ranchers by becoming a co-
sponsor of the Beginning Farmer and Rancher Opportunity Act.

  <bullet> The Community Agriculture Development Act (H.R. 3225)
      This bill sponsored by Rep. Marcy Kaptur (D-OH) will promote and 
        enhance community agricultural development in urban and other 
        non-traditional agriculture areas by helping to:

    <ctr-circle> Create the next generation of farmers in our nation's 
            cities.

    <ctr-circle> Work to eliminate food deserts.

    <ctr-circle> Strengthen local food systems and increase marketing 
            opportunities for small farmers.

      More info: http://www.foodsecurity.org/

    Please support urban agriculture by co-sponsoring the Community 
Agriculture Development Act.
    Thank you for this opportunity to participate in creating our 2012 
Farm Bill, a bill that will impact the health and economic well-being 
of all Americans, whether living in cities, suburbs, or rural areas.
                                 ______
                                 
                         Comment of Ruth Lanton
    Date Submitted: Friday, May 18, 2012, 12:52 p.m.
    City, State: Plainview, NY
    Occupation: Stay-at-Home Mom
    Comment: For the next farm bill, please support organic farming and 
nutrition programs.
    Big agricultural corporations don't need financial help, and it's a 
waste of taxpayer money to award subsidies to them.
    Use the farm bill to support smaller farmers, newer farmers, and 
farms that are using fewer pesticides, including organic farms and 
farms using IPM.
    Also save programs such as SNAP and WIC so that everybody has 
access to healthy food.
                                 ______
                                 
                       Comment of Angela LaPorta
    Date Submitted: Friday, May 18, 2012, 3:54 p.m.
    City, State: Pleasant Hill, CA
    Occupation: Small Business Owner
    Comment: Despite the influence of lobbyists, the committee must 
always remember that its first responsibility is to the largest number 
of people . . . the public. Food grown that does not treat the crops, 
land, and the workers who work it with respect, is not healthy, vital 
food for the people it feeds. Agribusiness is tainting our food and 
water with chemical fertilizers and pesticides, and persecuting farmers 
for practicing healthy agriculture simply out of control and greed. 
This is a crime against the American people. It is a crime against the 
land.
                                 ______
                                 
                      Comment of Anna Lee Larimore
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Portland, OR
    Occupation: Student
    Comment: I shop for food with the following criteria:

    (1) Are the people who grow this food getting a fair wage and 
        wholesome working and living conditions?

    (2) Is the food grown sustainably, without chemicals and drugs or 
        cruel conditions?

    (3) Does the farming of this food enhance the Earth or diminish it? 
        Is the soil enriched or depleted? Are the aquifers being 
        consumed too quickly? Is surface water being polluted?

    These are the considerations I want to see put to this farm bill.
            Thank you for listening,

Anna Lee Larimore.
                                 ______
                                 
                        Comment of Gloria Larkin
    Date Submitted: Sunday, May 20, 2012, 7:11 p.m.
    City, State: Los Angeles, CA
    Occupation: Corp. Administrator
    Comment: We, especially Organic Farmers, deserve a fair farm bill!
    We're tired of the corporate agribusiness stranglehold on our 
system and You, who seem to be very out of touch with most Americans!
    You need to fully fund the Conservation Stewardship Program!

    Please Maintain The EQIP Organic Initiative!

    No Subsidized Insurance Program! Just another way our tax dollars 
will get ripped off while putting our soil, environment and, therefore, 
our health at risk!
    A lot more people are watching what happens with this farm bill 
than you think. If you don't do what's right for the people, We Will 
Vote All Of You Out Of Office!
    Thank you.
                                 ______
                                 
                       Comment of Sarah Larrabee
    Date Submitted: Friday, May 18, 2012, 2:06 a.m.
    City, State: Boulder, CO
    Occupation: Realtor
    Comment: It's time to stop subsidies for mono-cropping, big ag, 
biofuels, GMO's, and toxic chemicals that pollute the Earth and grow 
food that is unsafe for human consumption. We need to farm in harmony 
with Nature, preserving wildlife, clean air, rich fertile, natural soil 
and untainted water.
    Support family and community farms. Support organic agriculture. 
The citizens want that, and it is the right thing to do.
                                 ______
                                 
                        Comment of John Larrieu
    Date Submitted: Friday, May 18, 2012, 2:52 p.m.
    City, State: Chicago, IL
    Occupation: Student
    Comment: Control of food sources need to belong to the people that 
live on that land in question, less control by big corporations when it 
comes to sustenance.
                                 ______
                                 
                        Comment of Denise Larsen
    Date Submitted: Friday, May 18, 2012, 3:18 p.m.
    City, State: Fairfax, CA
    Occupation: Corporate Trainer, Licensed Marriage and Family 
Therapist and Nutritionist
    Comment: As someone who grew up in a farming area in Northern Cal. 
and with friends still farming, I understand what they are facing. I 
also spend the vast majority of my food dollars buying organic food at 
Farmer's Markets (where local farmers sell directly to us). Again, I 
know what they are up against with Big Ag and Monsanto. I am tired of 
people we elect and pay being in the pockets of Big Ag and lobbyists. 
You are working for U.S. citizens! I ask that you maintain the EQIP 
Organic initiative, fully endorse all of the provisions of the Local 
Foods, Farms and Jobs Act, fully fund the conservation program and have 
any new insurance subsidies be tied directly to compliance with 
conservation programs, and implement all provisions of the Beginning 
Farmer and Rancher Opportunity Act. Please start doing the Right Thing 
versus continuing to do the Wrong Thing. We are sick and tired of it! 
Our health, environment, country, and future are depending on people 
like you doing what is truly right for once.
                                 ______
                                 
                       Comment of Winifred Larsen
    Date Submitted: Friday, May 18, 2012, 5:13 p.m.
    City, State: St. Paul, MN
    Occupation: Disabled
    Comment: I can't help but wonder why anyone, given the choice, 
wouldn't want non-GMO organic foods to eat. Clean, healthy food creates 
healthy humans. GMO's are killing us! So called `cheaper foods' that 
destroy our bodies and minds--what kind of bargain is that?
                                 ______
                                 
                        Comment of Linda Larson
    Date Submitted: Thursday, April 12, 2012, 12:10 a.m.
    City, State: Silver City, NM
    Occupation: Retired Retail Executive
    Comment: Food insecurity impacts 25% of our nations children and it 
is time for congress to act to eliminate systemic hunger in this great 
country. Surely as the richest nation in the world we can look inward 
and find the compassion to do the right thing by providing food to the 
poor & disenfranchised.
                                 ______
                                 
                        Comment of Linda LaSalla
    Date Submitted: Wednesday, May 09, 2012, 4:45 p.m.
    City, State: Corona, CA
    Occupation: Retired
    Comment: I grew up in Chattanooga, TN . . . many, many days I was 
hungry . . . I still remember those days. I am now 63--I am going to 
have to find a place to live and food to eat and not real sure how I am 
going to do that on 928.00 per month, so since I am having problems 
finding a part time job, I am going to have to relive my first years of 
my life. Shame on you for letting that happen. We have given to our 
country, we aren't asking for something we haven't earned . . . go look 
at your mom, your kids . . . do they have what they need? We don't 
deserve the same thing?
                                 ______
                                 
                     Comment of Elizabeth Lasensky
    Date Submitted: Friday, May 18, 2012, 3:05 p.m.
    City, State: San Carlos, CA
    Occupation: Administrator
    Comment: It's time that the ``farm bill'' became the ``Food Bill'' 
and directed our national resources into encouraging healthy, locally 
and sustainably grown, food. We should stop paying subsidies, including 
crop insurance, to agribusinesses and redirect that money to assisting 
small and medium size farmers and ranchers and in promoting 
conservation and restoration of our resources.
                                 ______
                                 
                       Comment of Coy M. LaSister
    Date Submitted: Thursday, May 17, 2012, 8:47 p.m.
    City, State: Saint Petersburg, FL
    Occupation: Community Victory Garden Coordinator
    Comment: I believe the House Agriculture Committee needs to explore 
the Farm to Fork initiatives to develop more collaborative efforts 
between local farm producers, food suppliers, retail and wholesale food 
markets, community victory gardens and agricultural schools to improve 
the food delivery system that serve to produce more and better 
nutritional fruits and vegetables to build stronger minds and bodies of 
youth, adults. And seniors in underserved communities nationwide. I 
further believe that the community victory garden concept developed in 
war effort in the 1940s in communities nationwide, particularly 
underserved minority communities can not only serve to improve the 
health and well being of citizens but teach our youth the meaning of 
nutrition and health in all of our daily lives. I challenge the House 
Agriculture Committee to seek out certain Farm to Fork initiatives in 
the farm bill and upcoming legislation to better utilize community 
victory gardens and link them with farms and agricultural producers to 
improve the health of all American senior and youth citizens. I stand 
ready to work with House Committee members to develop solutions to our 
food and health issues. Thank you for taking the time to read this 
statement. Please contact me at your earliest convenience.

Coy M. LaSister,
Senior Resident,
Community Victory Garden Coordinator.
                                 ______
                                 
                       Comment of Ira Laster, Jr.
    Date Submitted: Wednesday, May 09, 2012, 4:36 p.m.
    City, State: Bethesda, MD
    Comment: As Congress works to modify the farm bill please do not 
cut aspects of the program that provides funds that provide food to 
needy individuals and families.
                                 ______
                                 
                      Comment of Jennifer Lauchlan
    Date Submitted: Saturday, May 19, 2012, 7:56 p.m.
    City, State: Washington, D.C.
    Occupation: School Librarian
    Comment: We need to reform farm policies so that they support small 
farms and real food, not big agribusiness and processed artificial 
foods.
                                 ______
                                 
                      Comment of John Laudenslager
    Date Submitted: Friday, May 18, 2012, 1:48 p.m.
    City, State: Fort Worth, TX
    Occupation: Graduate Student
    Comment: I've heard about some of the elements of the farm bill and 
would like to offer my feedback. I think the time has come to reduce 
the amount of subsidies going to corporate farms. I know many of them 
get hundreds of thousands in subsidies, possibly more, that just pads 
their bottom line. It's hard for me to understand that in an era of 
conservative economics, conservative politicians want to increase those 
subsidies at the expense of programs that support sustainable farming. 
It just sounds like undue industry influence by large agribusiness and 
the likes of Monsanto.
    Here are my other positions:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Maureen Lauder
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Victor, NY
    Occupation: Retail
    Comment: Please support sustainable, local, and organic agriculture 
in the U.S. Our reliance on pesticides, GMOs, and environmentally 
unsound farming practices is endangering our nation's health and food 
security. And concentrating our food supply in the hands of huge 
corporations whose primary motivations are corporate share value and 
profit all but ensures that our nation's food production will not be 
aligned with the best interests of our citizens. Please take a stand 
against big ag and help craft an agriculture policy that serves the 
best interests of our citizens and small farmers.
                                 ______
                                 
                    Comment of Angela Laughingheart
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Milwaukee, WI
    Occupation: College Instructor
    Comment: City dwellers have no understanding or control over our 
food industry. Legislation must protect us, not fleece us. You must be 
the guardians of the food supply of the people.
                                 ______
                                 
                        Comment of Rose Laughlin
    Date Submitted: Friday, May 18, 2012, 1:26 p.m.
    City, State: Seattle, WA
    Occupation: Office Manager
    Comment: Organic food should be affordable for all people. Please 
consider subsidizing organic agriculture. It is better for our bodies 
it is better for the Earth. The agri-industry is obviously in cahoots 
with the American government. It is time for a sustainable food system 
in America.
            Thank you,

Rose Laughlin,
Seattle, WA.
                                 ______
                                 
                       Comment of Suzanne Lavine
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Grants Pass, OR
    Occupation: Sales
    Comment: Please continue to support the small family farmers. It is 
vital that all farmers that want to farm organically can safely do so 
with full gov't support and no bullying by large corporations. Keep 
Genetically Modified products out of Oregon.
                                 ______
                                 
                         Comment of Suzanne Law
    Date Submitted: Friday, May 18, 2012, 4:59 p.m.
    City, State: Ijamsville, MD
    Occupation: Bookkeeper, Grandmother
    Comment: Please recognize that our future depends on healthy farm 
practices, i.e., soil and water conservation, crop rotation, and 
careful preservation of heirloom plant varieties. The more mankind has 
intensely farmed the land, the sicker we have become, and the less 
sustainable our practices have become. We cannot afford to abuse 
ourselves and our environment any longer.
                                 ______
                                 
                       Comment of Liana Lawrance
    Date Submitted: Friday, May 18, 2012, 2:09 p.m.
    City, State: Oakland, CA
    Occupation: Graphic Designer
    Comment: The health of the citizens of this nation depends on the 
food produced by the country's farmers. The current Farm Policy around 
subsidies allows for cheap unhealthy food to flow abundantly in our 
food supply. This in turn makes it easier for our population to 
consume, which is one of many factors contributing to the obesity 
epidemic. I'd like to see a farm bill that makes healthier food flow 
abundantly to our citizens. So that an easier, more affordable, and 
wiser food choice is made readily available to everyone in our 
communities.
                                 ______
                                 
                       Comment of Chris Lawrence
    Date Submitted: Friday, May 18, 2012, 6:17 p.m.
    City, State: Terrebonne, OR
    Producer/Non-producer: Producer
    Type: Field Crops, Vegetables
    Size: 50-150 acres
    Comment: The farm bill has included some small budget items to 
encourage organic production. It is imperative that we increase 
spending in this area. Our government should not favor through 
legislation the growth of corporations like Monsanto. Science and 
experience on the ground, have clearly demonstrated that genetic 
modified crops are causing some serious problems in the field with the 
increased use of herbicides and are threatening our health in this 
country. If we are to continue to feed our people and be good stewards 
of the land, we need diversity in our cropping methods, number of seed 
varieties and availability of seed. I know that our elected officials 
have been hearing from individuals and groups that are concerned about 
these issues. They also donate to campaigns and deserve to be 
represented. It is critical to do the right thing and not favor any one 
side.
    I would also urge lawmakers to carefully evaluate the effects of 
crop subsidies beyond their backyards.
    Thank you for your time.
                                 ______
                                 
                       Comment of Tracey Lawrence
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: Ringwood, NJ
    Occupation: Digital Arts Consultant
    Comment: I highly value the food I put in my body, and am very 
concerned with the farming practices being subsidized in this nation. 
We should be supporting small family farms that produce livestock and 
plant produce responsibly and healthfully. The health of our people and 
planet are at stake.
                                 ______
                                 
                         Comment of Trina Lawry
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Ambler, PA
    Occupation: Long-Term Unemployed
    Comment: For the health of our people and the security of our 
nation, we should be supporting local, sustainable farms. Instead of 
huge corn and soy subsidies, pay large farmers to change their fields 
over to grow more diversified fruits and vegetables. Support 
initiatives that bring healthy food to the small stores in food 
deserts. Increase the SNAP payments for use at Farmer's Markets and 
stop all SNAP payments for soda and sugared drinks. Use the tax dollars 
you are already spending to steer the nation to a more balanced food 
system. Also, with so many unemployed, sustainable ag would be a great 
way to employ more people.
    In addition, I support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Linda Layer
    Date Submitted: Friday, March 16, 2012, 3:06 p.m.
    City, State: Lockport, NY
    Occupation: Retired Cust. Service Representative
    Comment: Please make sure that the farm bill passed continues to 
support the Food Banks and government programs such as SNAP. Many 
families and especially seniors depend on food banks for help. Thank 
you.
                                 ______
                                 
                         Comment of Betty Layne
    Date Submitted: Wednesday, April 11, 2012, 1:33 a.m.
    City, State: Albuquerque, NM
    Occupation: Founder and Chairperson of a Food Pantry
    Comment: I founded a Food Pantry 3\1/2\ years ago. In that period 
my ``Participant'' numbers have Increased by 146%. Of those we serve, 
97% are Seniors living on horrific, fixed incomes. Social Security and 
other retirements had no COLAS for 2 years. In that same period how 
much did All other prices raise? Have you ever tried to survive on 
under $800 per month income in today's world? My Participants rely on 
our Pantry to simply survive. It doesn't cure, but it certainly helps 
when they have to decide between buying food or their prescriptions. 
The National statistics are appalling regarding Americans who are food 
challenged. The U.S. spends more money on foreign food aid for other 
countries than they spend for our own people who battle hunger every 
day. Please, please Increase the funding for TEAFAP programs--the need 
grows more each day. Roadrunner Food Bank impacts thousands of New 
Mexicans every, single day. A 37% decrease in Federal funding from 2010 
to 2011 is criminal. More food assistance is mandatory for a 
disproportionate number of our State's population--not less. Thank you.

Betty Layne,
Helping Hands Food Pantry,
[Redacted].
                                 ______
                                 
                         Comment of Linda Layne
    Date Submitted: Saturday, May 19, 2012, 11:22 p.m.
    City, State: Woodbridge, VA
    Occupation: Unemployed
    Comment: Our current agricultural system is totally broken. Full 
reform is desperately needed to improve our access to healthy, non-GMO 
food. I fully support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied Directly To 
        Compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    It is also Essential to fully fund organic research, nutrition, 
sustainable agriculture, and true conservation programs as this is 
extremely necessary to free our country from the control of industrial 
agriculture entities that don't have the health of the public in mind 
but seek to walk away with billions in taxpayer money while putting the 
land, soil, and environment in serious continued jeopardy.
    Please Take This Opportunity to fully reform agricultural policies 
to protect the environment and the health of the American people while 
removing the subsidies that go to gigantic commodity farmers and 
insurance companies that don't actually comply with any established 
conservation policies.
                                 ______
                                 
                       Comment of Steve Lazarski
    Date Submitted: Saturday, May 19, 2012, 10:54 a.m.
    City, State: Minneapolis, MN
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: As a small scale producer and crop consultant, many of my 
clients are organic or sustainable farmers. They are a fast growing 
market, that serves the demands of the public desire to have safe, 
organic and sustainably raised foods. By cutting funding to organic and 
sustainable you will be affecting the lives of 1,000 or small scale, 
organic and sustainable farmers and those that support them.
    It is time to do the right thing for the farmer and not for the 
large corporate entities that appear to be buying their way into our 
legislation. Get Big Business out of Congress and do the right thing 
for the people, the farmers, the land and the nation.
                                 ______
                                 
                         Comment of Holly Le Du
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Oakland, CA
    Occupation: Catering Chef
    Comment: PLEASE do not cut the funding for organic research and to 
small farmers! Organics are the direction we must take for the health 
of society. There has been too much independent research and anecdotal 
evidence that pesticides and GMO's will cause huge health problems in 
the future and cost society millions of dollars. Please, I urge you to 
put as much money towards organic agriculture and small farms as 
possible. Thank you.
                                 ______
                                 
                         Comment of Andrea Lea
    Date Submitted: Friday, May 18, 2012, 1:29 p.m.
    City, State: O'Brien, FL
    Occupation: Social Entrepreneur/Retired
    Comment: Organic food should by our number 1 priority as a country. 
Eating the provender recommended by corporate interests will result in 
ever-escalating obesity along with failing health, further diminishing 
our vitality as a nation.
                                 ______
                                 
                          Comment of Lucy Leaf
    Date Submitted: Friday, May 18, 2012, 3:01 p.m.
    City, State: Surry, ME
    Occupation: Health Worker
    Comment: Please support organic practice, local small farming and 
organic research. Please discontinue farm subsidies in response to 
agribusiness lobbies.
    Thank you.
                                 ______
                                 
                        Comment of Michael Leahy
    Date Submitted: Friday, May 18, 2012, 10:29 a.m.
    City, State: New York, NY
    Occupation: Consultant
    Comment: I would like to see a food system that could react to 
market demands rather than be distorted by subsidies and intervention. 
Remove subsides to allow small and medium-sized farmers and ranchers to 
earn an honest living growing and raising what they think will best 
meet consumer demand and protect their land and community.
                                 ______
                                 
                 Joint Comment of Nancy and Gary Leahy
    Date Submitted: Saturday, May 19, 2012, 9:42 a.m.
    City, State: Portland, OR
    Occupation: Professional Window Washer
    Comment: Please take in consideration the food that our population 
is currently taken in, in their diets. I recently changed my diet to 
whole foods, no dairy, no gluten and cut my meat consumption to 10%, I 
was having a lot of health problems and depression before I changed my 
diet, once I cleaned up what I was eating and went to a whole food, 
plant based diet, all my symptoms went away. I could not believe the 
energy and the clarity in my thinking after I did this. We could really 
make a difference in this world of ours if we could get others to eat 
like this, but it won't happen until we get the GMO's out of our food 
system. I have been a farmer all my life up until now and my husband 
was an agronomist we have seen firsthand what happens by putting 
chemicals in to our food, and the corruption in the industry. We had to 
sell our farm because we could no longer make a living due to the 
farming practices that are out there today. We have seen our community 
dying over the past years, due to corporate farmers buying up family 
farms because they could no longer compete with the bigger farmers. 
People have had to move away to find work because there is nothing left 
in the community except for a few big farmers. Again I plead please 
make the changes that we need so that we can have a healthier and 
sustainable world. Thank you for taking the time to read this.

Nancy and Gary Leahy
                                 ______
                                 
                       Comment of Victoria Leanza
    Date Submitted: Friday, May 18, 2012, 12:20 p.m.
    City, State: Albany, NY
    Occupation: Education Advocacy/Exec. Secretary
    Comment: Dear Mr. Tonko:

    Knowing you support community farms, community gardens, local farm-
to-table initiatives, I write to you to request from you the full 
endorsement of all provisions of the Local Foods, Farms and Jobs Act 
(H.R. 3286). Us little folk here who just want to feed our families 
simple healthy foods, who want to support Our local farms--which in our 
part of beautiful upstate New York are plenty, but struggling, just 
want to make sure that they don't get the short end of the stick, 
especially considering that they support us in a most vital, most 
important manner.
    I write in support of:

  <bullet> Fully funded conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    This all is for the health and well-being of us and future 
generations.

            Most sincerely,

Victoria Leanza.
                                 ______
                                 
                         Comment of Lane Leard
    Date Submitted: Friday, May 18, 2012, 7:35 p.m.
    City, State: San Antonio, NM
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: We don't need dictators of any description, (political or 
corporate) to decide our lives.
    Let's get all of them out of policy and rule making roles.

Lane Leard,
[Redacted],
San Antonio, NM.
                                 ______
                                 
                      Comment of Jacqueline Leavy
    Date Submitted: Friday, May 18, 2012, 3:11 p.m.
    City, State: Oak Park, IL
    Occupation: Consultant to Nonprofit Organizations
    Comment: I am a mother who's always tried to feed my family healthy 
foods. I reared a daughter who now helps run a restaurant with healthy 
foods, and a son who also advocates for community-supported 
agriculture, neighborhood ``Farmers' Markets'' and organic food to 
become mainstream parts of our society and economy. We must acknowledge 
all of the threats to health from GMOs and Factory-style farming & 
livestock production, and move forward toward a real transformation of 
our food system, including assurances that All Americans--no matter 
their race or income--have access to healthy foods. Just think how much 
money could be saved by providing healthy food, instead of millions of 
Americans suffering from obesity, cancer, and preventable diseases!
                                 ______
                                 
                        Comment of Richard LeBer
    Date Submitted: Thursday, May 10, 2012, 10:07 a.m.
    City, State: Atlanta, GA
    Occupation: Executive
    Comment: I strongly urge the Committee not to cut the Food Stamp 
program. This program has been demonstrated to be one of the most 
effective tools for assisting Americans in poverty and experiencing 
hunger. Millions of American families and children rely on it every 
year. Cutting it would be disastrous for them and bad social policy for 
the country.
                                 ______
                                 
                       Comment of Elaine LeBlanc
    Date Submitted: Friday, April 20, 2012, 9:57 a.m.
    City, State: Shrewsbury, MA
    Occupation: Director, Shrewsbury Human Services Food Pantry
    Comment: I am the Director at the Shrewsbury Human Services Food 
Pantry, a partner agency of the Worcester County Food Bank, located at 
St. Anne's Church in Shrewsbury, MA. Thank you for this chance to share 
my concerns about hunger in Massachusetts with you.
    First, I would like to tell you a little bit about the Shrewsbury 
Human Services Food Pantry. We are a group of volunteer-only staff 
consisting of women and men of all ages, backgrounds and economic 
situations. Our income is derived from our thrift shop as well as other 
benefactors who help us in this endeavor. Schools, civic organizations, 
churches and companies throughout the community provide support in a 
variety of ways. We also receive private and memorial donations along 
with having yearly food drives and fairs in order to better service our 
clients.
    As of March 2012, we provided food for 1,810 registered people, 
which is 5% of the Shrewsbury population. Our clients represent 692 
families, which has increased 13% since January. Unfortunately, there 
is significant potential that this number will continue to increase due 
to the current state of the economy, even more so during any holiday 
season.
    Second, I know there are great difficulties ahead for you while 
drafting a farm bill in today's economy. But without a strong farm 
bill, not only will The Emergency Food Assistance Program and the 
Supplemental Nutrition Assistance Program struggle to maintain food 
resources but so will food banks across the country. This is why I ask 
you to continue to support these anti-hunger programs. Programs that 
help put food on the tables of Americans who are having trouble making 
ends meet.
    Many of your constituents rely on the Shrewsbury Human Services 
Food Pantry to ensure they and their families at least meet their basic 
food needs and we do all we can to help them. However, charity alone 
cannot meet the ever increasing need for assistance in Massachusetts 
and the country, Federal support is extremely important, more so now 
than ever. Supporting and protecting anti-hunger programs is not only 
imperative, it's the right thing to do for Americans in need.
    Again, I thank you for this opportunity to provide my thoughts 
about hunger in Massachusetts and the upcoming farm bill.
                                 ______
                                 
                        Comment of Dennis Ledden
    Date Submitted: Saturday, May 19, 2012, 8:14 a.m.
    City, State: Fiddletown, CA
    Producer/Non-producer: Producer
    Type: Fruits, Vegetables
    Size: Less than 50 acres
    Comment: We farm organically, yet find little or no support in the 
current Farm bill like ``factory'' farms who use insecticides, 
pesticides, and chemical fertilizers. Please consider the small farmer 
who grows organically and focuses on sustainability and enrichment of 
the soil and our Earth by including a provision for ``Organic 
Farming''.
    Thank you.
                                 ______
                                 
  Submitted Statement by Michele E. Ledoux, Executive Director, Lewis 
       County Cooperative Extension Association, Lewis County, NY
    This is some information I have from working with forestry 
communities and individuals in Northern New York. Thank you for letting 
me submit this important information.

    Farm Bill Programs and the Northern New York Forest Communities

    The 2008 Farm Bill authorized several programs targeted 
specifically to the opportunities and needs of Northern New York and 
Northern Forest communities. These programs address the crucial 
intersections between forest stewardship and sustainable economic 
development by directing resources to projects that grow jobs and 
create local wealth through the sustainable use and management of 
natural resources. In reauthorizing the farm bill in 2012 Congress 
should focus on five key areas (in priority order) that will better 
enable forest conservation, stewardship and benefit New York's rural 
economy:

    1. Maintain Rural Development investments and sustain focus on the 
        Northern Forest region.

    2. Promote policies for sustainably produced biomass energy 
        production.

    3. Improve conservation programs for forests.

    4. Combat forest-related invasive species.

    5. Strengthen forestry outreach, education, research and 
        inventories.

    Maintain Rural Development Investments and Focus on the Northern 
Forest Region

    Extreme fiscal challenges under which the farm bill will be written 
and the pressure to cut mandatory funding. However, Rural Development 
investments have already made a disproportionate contribution to 
deficit reduction as investments in this critical area have fallen by 
nearly \1/3\ since 2003. These huge cuts to Rural Development come at a 
time when the rural communities and individuals represent the most need 
access to the agency's grants and loans, which help spur private 
capital to finance infrastructure, housing and business development. 
Action to reverse this decline in funding and the impending deeper cuts 
signaled by the discretionary spending targets of the Budget Control 
Act are critical to helping rural individuals create and sustain 
vibrant rural communities and regions. Nearly all Rural Development 
programs are funded with discretionary funding through the 
appropriations process. However, Rural Development did receive 
mandatory funding in the 1996, 2002 and 2008 Farm Bills. The Rural 
Development title has no baseline for the 2012 Farm Bill. Congress and 
the Administration need to work to ensure that rural investments such 
as USDA Rural Development do not receive disproportionate cuts. Rather 
inclusion of mandatory funding for Rural Development in the 2012 Farm 
Bill should be considered. The 2012 Farm Bill will be seriously flawed 
if no funding is maintained to enhance economic opportunity in rural 
communities and regions.
    For the Northern Forest region, the 2008 Farm Bill established the 
Northern Border Regional Commission. This Federal-state regional 
commission was created to target resources to promote economic growth 
strategies and projects within the northern portions of the four-state 
region of Maine, New Hampshire, New York and Vermont. These efforts 
focus on leveraging the public, private and philanthropic resources 
needed to develop and sustain the community building blocks for 
economic competitiveness and development in the most severely 
distressed portions of the Northern Forest region, such as: 
transportation and basic infrastructure, job skills training and 
entrepreneurial development, telecommunications, resource conservation, 
tourism, and recreation, and sustainable energy solutions. The 
Commission has awarded a total of $2.5 million in grants in the region 
since FY10. Retaining this regional focus not only helps to leverage 
rural investment in Northern New York and the Northern Forest but 
provides the flexibility to help meet the unique needs of this four 
state region.

    Promote Policies for Sustainably Produced Biomass Energy Production

    The 2012 Farm Bill has the opportunity to respond to the regionally 
significant needs of fuel oil dependency in the Northeast while 
leverage substantial local economic benefits to Northern New York and 
the Northern Forest region by strengthening policies and programs that 
enable generation of renewable energy from forests. Renewable energy 
markets have potential to help supplement traditional forest products 
markets with a complimentary market for forest owners, helping to keep 
forests as forests. Wood energy represents a tremendous economic 
opportunity in the Northeast, which accounts for 84% of the U.S. 
consumption of home heating oil. A homeowner switching from oil to wood 
pellets for heat will save an average of 40% annually on their heating 
costs. Substituting a locally produced fuel for imported oil keeps 
energy dollars local, and strengthened demand for local wood pellets 
and wood chips sustains and grows jobs in the local forest economy.
    The farm bill can strengthen these opportunities by continuing to 
support renewable energy research and development and strengthening the 
focus in R&D on forest-related energy opportunities that minimize 
impacts on wildlife, water and habitats. The farm bill should also 
include renewable energy infrastructure development assistance for 
sustainable community scale projects that focus on efficient biomass 
technologies such as thermal and combined heat and power applications 
through the Community Wood Energy Program. The purpose of the Community 
Wood Energy Program is to encourage the development of community wood 
energy plans and to provide resources for the acquisition or upgrade of 
community wood energy systems. These ``community scaled'' efficient 
technologies have the strongest potential to support sustainable forest 
management, enable new local markets for forest land owners, and 
support rural economic development. Several communities in the North 
Country have taken advantage of using wood for thermal applications 
that reduce their dependency on foreign oil and are seeing annual fuel 
cost savings that can help reduce property taxes.

    Improve Conservation Programs for Forests

    Farm bill conservation programs offer a variety of tools for forest 
owners to improve their management practices as well as help keep their 
forests intact and economically viable. These programs help improve 
wildlife habitat for hunting and fishing, help forest landowners and 
farmers who own forests implement practices to keep our water and our 
air clean, lessen flood impacts, and help landowners combat insects, 
disease, and invasive species.
    To ensure these Conservation Programs continue to provide 
conservation tools for forest owners, the 2012 Farm Bill should:

  <bullet> Reauthorize the Environmental Quality Incentives Program 
        (EQIP) and the Conservation Reserve Program (CRP) that benefit 
        forest and agricultural land owners by encouraging sound 
        management practices and protecting critical ecological 
        resources.

  <bullet> Reauthorize the Forest Legacy Program (FLP), and the 
        Community Forestry and Open Space Conservation Program.

  <bullet> Reauthorize and revise the Grassland Reserve Program (GRP) 
        and the Farm and Ranch Lands Protection Program (FRPP).

    Combat Forest-Related Invasive Species

    19 million acres of New York forests are at risk of increased 
mortality due to insects and disease. To help combat these forest-
related invasive species the 2012 Farm Bill should support programs 
that enable New York and our communities detect and rapidly respond to 
invasive pest threats that if not addressed could result in ecological 
and economic damage possibly in the hundreds of millions of dollars. 
Specifically, the 2012 Farm Bill should:

  <bullet> Maintain the Plant Pest and Disease Management and Disaster 
        Prevention Program. This program helps build and preserve 
        critical plant health safeguarding initiatives, helping to 
        protect forests or mitigate damage of invasive.

  <bullet> Support continued funding as authorized for Early Plant Pest 
        Detection and Surveillance Improvement Program.

  <bullet> Support Cooperative Forest Health Management Program within 
        USDA Forest Service State and Private Forestry.

    Strengthen Forestry Outreach, Education, Research and Inventories

    Forestry outreach and education activities are essential for 
engaging forest owners in conservation and management activities on 
their land. Without these activities and programs, landowners will not 
have the knowledge and tools to take the next steps and practice 
responsible management on their land. This education and outreach must 
be informed by solid forestry research and a comprehensive forest 
inventory that provide real-time information on health and condition of 
our forests. To strengthen the availability of forestry outreach, 
education, research, and inventory, the 2012 Farm Bill should 
reauthorize and reaffirm the importance of the U.S. Forest Service's 
Forest Inventory and Analysis Program (FIA) and direct the Agency to 
enhance the program's efficiency and effectiveness to ensure the 
program is fully implemented.
                                 ______
                                 
                         Comment of Anthony Lee
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Irondequoit, NY
    Occupation: Attorney/Consultant
    Comment: My wife and I would like to see Congress pass a Food & 
Farm Bill that enhances food safety, helps small family farmers, 
preserves SNAP and WIC programs and limits or eliminates the subsidies 
for ``industrial factory farms'' and (CAFOs). Encouraging more small 
family farms to develop and flourish, limit the proliferation of highly 
processed and nutritionally barren foods while allowing access to fresh 
fruits and vegetables for All American should be a priority for both 
the House and Senate. I urge you to make this a Bipartisan effort to 
help make this nation strong again. A strong healthy body in our 
children will help them to have strong and sharp minds to keep American 
on top.
                                 ______
                                 
                         Comment of Gloria Lee
    Date Submitted: Friday, May 18, 2012, 2:16 p.m.
    City, State: San Francisco, CA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: I dedicated and work at the Growing Home Octavia Garden 
for the Homeless. It was started by Project Homeless Connect. These 2 
small plots are different from Green Gulch Farm where I lived for a 
number of years.
                                 ______
                                 
                          Comment of Rena Lee
    Date Submitted: Saturday, May 19, 2012, 2:17 p.m.
    City, State: Davie, FL
    Occupation: Unemployed Public Experience Mgr.
    Comment: I am very concerned about the disregard for Americas 
organic/local farmers and support for the commercial giant Monsanto 
shown by government officials. Please support the organic research, 
food stamp continuance (I have friends out of work friends who will not 
be able to feed their families), and insist on the labeling of GMO 
foods.
    Thank You.
                                 ______
                                 
                   Comment of Charlotte Lee-Andersen
    Date Submitted: Saturday, May 19, 2012, 4:36 p.m.
    City, State: San Francisco, CA
    Occupation: Sales/Marketing Media
    Comment: Be fair to local family farmers so we can support them, 
and eat fresh, affordable locally grown foods. Local and fresh 
unprocessed safe food needs to be accessible to all people regardless 
of income.
                                 ______
                                 
                     Comment of Cavana Lee-Hazelton
    Date Submitted: Sunday, May 20, 2012, 5:24 p.m.
    City, State: New York, NY
    Occupation: Teacher
    Comment: Please make it a priority to respect those consumers who 
wish to eat organically without pesticides or food tainted with GMOs. 
Please make it mandatory to label all GMOs, non-organic or natural 
foods.
    Please be responsible and research the effects of `pesticide 
cocktails' and submit this information to the public.
    Please restrict the use of plastics in our environment and food 
packaging, as they apparently hold small doses of estrogen which do 
indeed effect (cancer, organ damage and infertility) the well-being of 
humans as they intake products wrapped by this afore mentioned plastic.
    Thank you for your dedication to provide healthy foodstuffs to 
current and future consumers.
                                 ______
                                 
                        Comment of Tina Legault
    Date Submitted: Friday, May 11, 2012, 3:46 p.m.
    City, State: Kenmore, WA
    Occupation: Graphic Designer
    Comment: As someone who recently stopped eating all animal products 
due to health and moral reasons, I think that it's irresponsible for 
our government to continue to pump money into an industry that is more 
concerned about profit than putting healthy, uncontaminated food on 
tables. Instead of subsidizing farmers to grow grain for livestock that 
will be slaughtered, that money could be funneled into growing organic 
vegetables and grains for human consumption. Why do I have to pay more 
money to eat non-GMO and pesticide free food? Food that costs less to 
produce might I add.
                                 ______
                                 
                         Comment of Anne Legene
    Date Submitted: Friday, May 18, 2012, 1:03 p.m.
    City, State: Great Barrington, MA
    Occupation: Musician
    Comment: The new farm bill needs to look to the future health of 
the planet and the population. It needs to reflect the vital 
understanding that small organic farms are the future, the only 
sustainable way to produce healthy food in a time when agriculture is 
contributing heavily to global warming. Genetically modified products, 
exposed to ever growing amounts of pesticides, are threatening the 
health of livestock and people, and mass produced food is lacking more 
and more in vital nutrients, though not in chemical additives. Hence 
the bill needs to support and encourage small (organic) farms, rather 
than make life more difficult for them. It needs to cut out all 
subsidies and loopholes for industrial giants like Monsanto and factory 
farms. It needs to reflect the reality of the strain that Monsanto's 
monopoly on seed has caused small farmers, who now pay many times the 
amount for their seed corn that they used to pay, and it needs to help 
get this situation back to normal. The farm bill needs to reflect the 
needs of farmers, not the wishes of corporate power.
                                 ______
                                 
                        Comment of Emily Lehecka
    Date Submitted: Friday, March 23, 2012, 3:27 p.m.
    City, State: Smithtown, NY
    Occupation: Nonprofit
    Comment: Please don't cut these important nutrition programs. There 
are so many people relying on them to get enough food each day, and 
even that isn't enough. Cutting programs like SNAP would be 
devastating.
                                 ______
                                 
                       Comment of Heather Lehman
    Date Submitted: Thursday, May 17, 2012, 2:12 p.m.
    City, State: Vancouver, WA
    Occupation: Local Farmers' Market
    Comment: I work hand in hand with small scale farms in a 120 mile 
radius of where I live in order to supply an area of the city that 
became a fresh/healthy food desert. I live in an ag state, and one 
where diversified family farms and their future farmers are direly 
needed--to keep our economy healthy and to keep our people healthy. 
Please.
                                 ______
                                 
                        Comment of Marian Lehman
    Date Submitted: Friday, May 18, 2012, 12:57 p.m.
    City, State: Midlothian VA
    Occupation: Systems Analyst
    Comment: We must clean up our food supply and use sustainable 
farming methods that protect our food, soil, and water. Stop with 
harmful pesticides and harsh fertilizers. Support and reward our 
organic farmers.
                                 ______
                                 
                        Comment of Steve Lehman
    Date Submitted: Thursday, May 10, 2012, 12:59 p.m.
    City, State: Tucson, AZ
    Occupation: Retired Accountant
    Comment: I support the local food bank. I find it disgraceful that 
a rich country would cut needed food for the needy, while giving rich 
oil companies money to make commercials on TV. Something is wrong.
                                 ______
                                 
                        Comment of Silvia Lehrer
    Date Submitted: Friday, May 18, 2012, 12:23 p.m.
    City, State: Water Mill, NY
    Occupation: Author/Food Writer/Culinary Educator
    Comment: At last the American people have the availability of 
eating healthy and knowing where their food comes from. I totally 
support the food and farm bill message and thank you in advance for 
your support.

Silvia Lehrer.
                                 ______
                                 
                         Comment of Avra Leigh
    Date Submitted: Friday, May 18, 2012, 12:05 p.m.
    City, State: Harrisonburg, VA
    Occupation: Self-Employed
    Comment: It is so disheartening and unnecessarily difficult to find 
meat that is not tainted with hormones or antibiotics. It is even more 
difficult find fruits and vegetables that have not been subjected to 
pesticides and genetic wizardry.
    STOP allowing companies like AIG and Monsanto from manipulating the 
toxicity of our nation's foods.
                                 ______
                                 
                         Comment of Gary Leigh
    Date Submitted: Thursday, May 17, 2012, 8:18 p.m.
    City, State: Granada Hills, CA
    Occupation: Retired
    Comment: You need to promote hydroponics to grow crops we are 
losing good ground soil to plant crops we need ways that could be used 
in deserts to grow fruits and vegetables. This would help third world 
countries as well. Also use of solar and led technology to help grow 24 
hrs. a day.
                                 ______
                                 
                         Comment of Len Leikas
    Date Submitted: Friday, May 18, 2012, 11:01 p.m.
    City, State: Fargo, ND
    Occupation: Retired (Former Farmland Owner)
    Comment: I'm very concerned about the state of agriculture in the 
USA. My roots are with the old fashioned family farm. I think there is 
much evidence that the corporate controlled agriculture produces an 
inferior product that has resulted in a steadily deteriorating health 
of our citizens. The emphasis on GMO crops, antibiotics, growth 
hormones and the like will only lead to health problems and many 
countries ban such products for human consumption. I accept that the 
consumer is also to blame for the epidemic of diabetes and obesity, but 
I ask that you look beyond pragmatics and your loyalty to big ag and 
push for the family farm and the health of our nation. Thank you.
                                 ______
                                 
                         Comment of Susan Leite
    Date Submitted: Friday, May 18, 2012, 10:10 a.m.
    City, State: Quinault, WA
    Occupation: Clerk
    Comment: Please support American farmers and fund the Organic 
Agriculture Research and Extension Initiative. Organic food is 
healthier for people and the environment.
                                 ______
                                 
                       Comment of Joseph Lemieux
    Date Submitted: Thursday, May 17, 2012, 8:29 p.m.
    City, State: Spring Hill, FL
    Occupation: Retired
    Comment: Give the money to Organic Farmers, we don't need your 
chemical fertilizers and pesticides and GMO crops. What we need is 
clean food and healthy soil.
                                 ______
                                 
                         Comment of Janie Lemke
    Date Submitted: Thursday, May 17, 2012, 3:55 p.m.
    City, State: Bedford, IA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Get the government out of private business . . . phase out 
the ``crop insurance'' and subsidy payments over a period of 5-10 years 
and let the farmers who can farm do so. Eliminate the Dept. of Ag., 
along with most of the Federal departments and All of the ``czars''. 
The Federal government is usurping the authority and responsibility of 
the state and local governments. Stop it now or it will become 
unstoppable.
                                 ______
                                 
                        Comment of Edward Lemon
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Brattleboro, VT
    Occupation: Software Engineer
    Comment: Living in rural Vermont, I have ready access to healthy 
food, at least during the summer. Unfortunately, many Americans do not 
have this luxury, because the farm bill currently skews production in 
the direction of unhealthy foods like corn syrup. You can see the 
consequences of this in any grocery store--lots of junk food, and very 
little quality food. You can see it in our school cafeterias, where 
recently pizza was listed as a vegetable.
    This needs to change. The farm bill should be promoting the 
production of foods that are safe and healthy, not foods that produce 
obesity. The focus should be on quality, not quantity. Subsidies to 
corporate farms need to stop. The United States can't afford to 
continue promoting unhealthy eating habits with tax dollars.
                                 ______
                                 
                       Comment of Christa Lemons
    Date Submitted: Saturday, May 19, 2012, 8:09 a.m.
    City, State: Paw Paw, WV
    Occupation: Artist
    Comment: We, as a country, need to be much more diligent about of 
food supplies. Knowing where the food comes from and that it is being 
grown safely and with our health foremost in mind should be key in any 
Food Bill that is under consideration. I Do Not want to eat GMO foods, 
meat that has been raised in horrendous conditions and then slaughtered 
in even worse facilities let alone food from across the world. We Must 
stop thinking that money and big agribusiness is the way to go. We need 
to support small local farmers and Community Supported Agriculture so 
we can insure safe healthy food for us all.
                                 ______
                                 
                       Comment of Lukasz Lempart
    Date Submitted: Friday, May 18, 2012, 1:33 p.m.
    City, State: Santa Clara, CA
    Occupation: Software Engineer
    Comment: We need to stop subsidizing corn and meat. Corn is 
essentially a nutritional no-op and meat is one of those things at the 
smallest point of the food pyramid. We should be eating significantly 
less of it than anything else. Subsidies need to go to local, 
sustainable farmers who grow nutritious fruits, vegetables, and grains 
not to polluting money hungry agribusiness.
    Farming has a great effect on our environment and the health of 
Americans. With good farming practices we can clean up our rivers, cut 
down on land use and water use, and at the same time provide the 
population with the nutrients they really need.
    I firmly believe that re-evaluating food subsidies will save the 
country billions of dollars in long term health costs.
                                 ______
                                 
                        Comment of Heidi Lenert
    Date Submitted: Friday, May 18, 2012, 1:50 p.m.
    City, State: New Orleans, LA
    Occupation: Glass Blower
    Comment: I come from a farming family in Louisiana and have watched 
them struggle, but am very proud of the hard work and dedication they 
have shown. With all the new research on the dangers of GMO foods and 
chemicals like fertilizers, organic agriculture has become more 
important than ever. Please support small farms and the backbone of our 
state and country.
                                 ______
                                 
                       Comment of Patricia Lennox
    Date Submitted: Friday, May 18, 2012, 1:44 p.m.
    City, State: Potsdam, NY
    Occupation: United Methodist Pastor
    Comment: I believe all people, rich and poor, deserve healthy, 
organic unprocessed foods to eat. We are seeing the results of farm/
factory diets with excessive obesity and diabetes. Why are we allowing 
the American people to be experimented on with GM foods and rewarding 
farmers for their use of chemicals that don't belong in our bodies, 
selling us crops harvested from toxic soils? I support local, small 
sustainable farming practices and I support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Kelly Lentz
    Date Submitted: Friday, May 18, 2012, 1:21 p.m.
    City, State: Ukiah, CA
    Occupation: Assistant Store Manager
    Comment: In order to meet the serious challenges of the 21st 
century, U.S. agricultural policy in the farm bill must shift from its 
focus of creating cheap commodities and artificially propping up income 
for farmers, toward implementing best agricultural practices for 
sustainable and organic production methods. U.S. food and agricultural 
policy must focus on adopting best agricultural practices that put the 
health of its citizens, the land and the livelihood of farmers and farm 
workers first.
    I fully support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                          Comment of Nick Leon
    Date Submitted: Friday, May 18, 2012, 6:12 p.m.
    City, State: San Jose, CA
    Occupation: Retired Educator
    Comment: Corporate welfare in the form of agriculture subsidies 
needs to be ended. Assistance to family farms and ranches is where the 
money needs to channeled.
                                 ______
                                 
                       Comment of Billie Leonard
    Date Submitted: Saturday, May 19, 2012, 12:12 a.m.
    City, State: Rathdrum, ID
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery
    Size: Less than 50 acres
    Comment: Dear Raul Labrador, we as consumers and producers need 
laws that protect natural food production. We need to be able to 
produce organic food for ourselves as well as other consumers. Please 
support a fair farm bill that protects the ``little farmer'' as well as 
the corporate farms in their production of agricultural products.
            Thank you,

Billie Leonard.
                                 ______
                                 
                        Comment of Joan Leonard
    Date Submitted: Friday, May 18, 2012, 8:41 p.m.
    City, State: Fridley, MN
    Occupation: Retired
    Comment: The small farmers should be the only farmers who receive 
farm subsidies as they are the ones who actually farm and care for 
their land. Large agribusinesses are only in it for the profit and will 
put whatever it takes, no matter how much herbicides and fertilizers 
until the land can produce no more. Land is our precious resource and 
we need to carefully guard it. In other words, we need stringent 
regulations on this.
                                 ______
                                 
                        Comment of Rita Leonard
    Date Submitted: Sunday, May 20, 2012, 12:52 a.m.
    City, State: Portland, OR
    Occupation: Special Ed Para-educator
    Comment: It's time we redirected military funding that is going 
toward preemptive invasions and apply it instead toward helping feed 
people. It's a poor choice whether to starve to death or be shot to 
death.
                                 ______
                                 
                         Comment of Sam Leopold
    Date Submitted: Friday, May 18, 2012, 10:12 p.m.
    City, State: Airmont, NY
    Producer/Non-producer: Producer
    Type: Dairy, Field Crops, Nuts, Poultry/poultry products, 
Vegetables
    Size: 50-150 acres
    Comment: We grow for a community of 150 people. We share labor and 
produce. Sell what is left. We have a care facility for our elders, and 
gardens provide life sustaining food and activity. I am convinced that 
outside business interests could never respect us or even understand 
how people would want to live for the values we enjoy. Cooperative 
ventures are not safe if organic agriculture is not safe.
                                 ______
                                 
                       Comment of Lorraine Lepore
    Date Submitted: Saturday, May 19, 2012, 8:13 a.m.
    City, State: Egg Harbor City, NJ
    Occupation: Executive
    Comment: Vital programs such as nutrition, conservation and support 
for organic and sustainable agriculture must not be cut. Also, GMO's 
must be stopped to ensure the health of our nation!
                                 ______
                                 
                        Comment of Gail Lescher
    Date Submitted: Saturday, May 19, 2012, 7:43 p.m.
    City, State: Springfield, MO
    Occupation: Organic Gardener, Housekeeper, Community Education
    Comment: Dear members of the House Committee on Agriculture,

    The time is now to make significant changes in the way agriculture 
is funded in this country. All signals point to a degradation in the 
environment, in our citizen's health, and in the compromised nature of 
our politicians to act on behalf of the people of the United States. We 
need those who were elected by the people to support the local foods 
and farms act (H.R. 3286), and support conservation issues that 
positively benefit the citizens of this country through long term 
benefits of clean air, water, and the rebuilding of our soils depleted 
by commercial agriculture. Please turn a deaf ear to the money coming 
from self-serving corporate entities and start making decisions that 
benefit the people.
            Sincerely,

Gail Lescher.
                                 ______
                                 
                        Comment of Daniel Lester
    Date Submitted: Friday, May 18, 2012, 2:50 p.m.
    City, State: Columbia, MO
    Occupation: Graduate Student
    Comment: Please make sure and support a farm bill that supports 
sustainable, local, organic agriculture that is fair to producers, 
consumers, and the land.
                                 ______
                                 
                        Comment of Laura Lester
    Date Submitted: Wednesday, May 09, 2012, 12:25 p.m.
    City, State: Atlanta, GA
    Occupation: Advocacy and Education Director Atlanta Community Food 
Bank
    Comment: I work with the Atlanta Community Food Bank, which serves 
38 counties in NorthWest Georgia. In the last 2 years we've seen a 30% 
increase in our food distribution per year. This is because the demand 
for emergency food assistance has skyrocketed in the last several 
years. We need a strong farm bill to make sure that struggling families 
can put food on the table. I ask that you pass a farm bill that 
protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs. We can't allow our 
children and seniors to go hungry. This is not only a moral imperative, 
but an economic one as well. Hungry people can't learn in school, have 
increased health problems, and miss more days off from work. Cuts to 
the nutrition programs will only increase our costs in the long-term. 
Please protect these programs.
                                 ______
                                 
           Joint Comment of Russ Lester and Jennifer Moffitt
    Date Submitted: Friday, May 18, 2012, 12:09 p.m.
    City, State: Winters, CA.
    Producer/Non-producer: Producer.
    Type: Nuts.
    Size: 1,000+ acres.
    Comment: As a organic walnut farmer, I ask that you . . .

    1. Maintain EQIP Organic Initiative and protect the Conservation 
        Stewardship Program from unfair funding cuts, and improve it by 
        ranking applications solely on their conservation benefits. As 
        farmers, we count on CSP and other conservation programs to 
        conserve soil for future generations, keep water and air clean, 
        and create habitat for wildlife--all while farming profitably.

    2. Endorse all provisions of the Local Foods, Farms and Jobs Act 
        (H.R. 3286). This act will help ensure that the farm bill makes 
        healthy food widely available to all Americans--including 
        schoolchildren! We must provide flexibility for states and 
        local districts to use existing food procurement programs to 
        purchase fresh, healthy food from local farmers and ranchers.

    3. Fully fund the Organic Research and Extension Initiative (OREI) 
        at the 2008 level.

    4. Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).
                                 ______
                                 
                     Comment of Courtney LeVasseur
    Date Submitted: Friday, May 18, 2012, 2:29 p.m.
    City, State: Omaha, NE
    Occupation: Grocer
    Comment: As a consumer and member of the public, I believe it has 
become increasingly important to practice better farming techniques and 
to share more information with the public about where our food is 
coming from. I volunteer on a weekly basis at a local organic farm with 
in my community and I believe that supporting more local organic 
farming practices will not only benefit our health, but helps build 
support and cohesiveness in our communities. Too long have we had to 
ask for our local grocery products to be labeled more clearly, too long 
have I had to wonder, what are \1/2\ the ingredients in this box of 
food and too long have the good men and women of this country had to 
fight for their own rights and land when big ag. companies get handed 
regulations in their favor. I want to live in a country where I can 
trust my government and be proud of what they do for us and ethical/
sustainable farming practices. Please help us build better communities 
and grow healthier food.
            Thank you for listening,

Courtney LeVasseur.
                                 ______
                                 
                         Comment of Joslyn Leve
    Date Submitted: Saturday, May 19, 2012, 12:43 p.m.
    City, State: Palo Alto, CA
    Occupation: Homemaker
    Comment: I am appalled by the drastic cut to food stamp funding 
when farm subsidies are still in place. There needs to be a shift in 
priorities in our farm policy, where we support sustainable growth 
while actually feeding our citizens. We are doing something wrong when 
nearly 10% of children in the U.S. have experienced food insecurity in 
2011.
    Our reliance on industrial agriculture brought advances and 
prosperity in the past; now we are both an obese and malnourished 
society, saddled with a system that leads to environmental degradation.
    I urge you to support legislation that takes care of our citizens, 
our environment and that helps create the next generation of farmers. 
Please vote for H.R. 3286 and H.R. 3236.
                                 ______
                                 
                         Comment of David Levin
    Date Submitted: Friday, May 18, 2012, 2:40 p.m.
    City, State: Haverford, PA
    Occupation: Disabled Teacher
    Comment: Please focus on support for small, family farms as opposed 
to large, industrial ones. Please regulate these larger ones carefully 
to protect the environment and minimize the damage of using chemicals 
such as pesticides. Please label genetically altered produce and 
products, ensure sustainability of land and of good lives for these 
hard-working providers of what feeds and sustains us all. Help them 
channel excess production to feed the poor, practice their craft with 
the most humane treatment of animals and land.
            Thank you,

David Walden,
Levin, PA.
                                 ______
                                 
                        Comment of Deborah Levin
    Date Submitted: Friday, May 18, 2012, 2:06 p.m.
    City, State: Camarillo, CA
    Occupation: Retired
    Comment: I oppose the current way most of our produce and animal 
foods are being grown and raised (the big, corporate, inhumane way of 
producing food). Particularly the cruel and inhumane way animals are 
raised, housed, and killed for food production; and the use of 
pesticides, harmful substances, and GMOs in growing our produce.
                                 ______
                                 
                        Comment of Gordon Levin
    Date Submitted: Friday, May 18, 2012, 4:04 p.m.
    City, State: Helena, MT
    Occupation: Scientist
    Comment: Our farm policy needs to support small producers, crop 
diversity, sustainable practices and soil conservation. The farm bill 
should not be a subsidy for Big Ag and Big Chem.
                                 ______
                                 
                         Comment of Penny Levin
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: Wailuku, HI
    Producer/Non-producer: Producer
    Type: Field Crops, Specialty Crops, Vegetables, Other
    Size: Less than 50 acres
    Comment: Look to history. The ability of this nation to feed itself 
with healthy, organic, locally-sourced inputs is how we have weathered 
all storms in the past, and will in the future. Every community should 
be able to source the food on their plates within a radius of 50 miles 
or less. This will cut dramatically reduce our intake and dependency on 
fossil fuels and increase local farm employment. Nationally and 
internationally, the data is clear that small farms (a few acres) 
provide a livelihood to more people per acre than industrial 
agriculture. The highest on-farm costs are fossil fuel based inputs 
(chemical fertilizers, herbicides and pesticides). None of those inputs 
create more soil. Supporting organic agriculture and small farms is 
imperitive to restoring and creating better soils. That only comes from 
organic material inputs (mulch).
    Here in Hawaii, the runoff from large scale agriculture into our 
oceans, kills our reefs and causes tremendous soil loss. On the 
mainland, the same practices fill your rivers and end up in the ocean. 
The deep poverty of the dust bowl era was caused by the very same 
agricultural practices the farm bill continues to maintain and support. 
We need a shift from subsidizing large agriculture and bad practices, 
to supporting small scale, localized and organic agriculture. It's time 
to get off the debt machine. I support you support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs Or organic agriculture 
        practices.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    I do not support NRCS becoming the deciding factor for compliance, 
as it is a program that does not work, nor is of interest for all 
farmers who may be implementing excellent practices; however, I support 
maintaining the EQIP Organic Initiative.
    Please support these measures and help to improve the capacity of 
this nation to feed itself and care for its natural resources for our 
future generations.
    Thank you.
                                 ______
                                 
                     Comment of Donna Levine-Small
    Date Submitted: Friday, May 18, 2012, 2:00 p.m.
    City, State: Greeneville, TN
    Occupation: Writer
    Comment: We need an organic food bill and a healthy food bill--
please don't approve a bill that will reward agribusiness for not 
having the decency to keep consumers' health in mind and trying to 
destroy small farms--please remember that you too have to eat and if 
you approve bills that continue to allow agribusiness to contaminate 
the food supply you and your family will have to eat this food also--
and if you take food stamps away from people--many people will starve.
                                 ______
                                 
                        Comment of Peggy Leviton
    Date Submitted: Friday, May 11, 2012, 7:28 p.m.
    City, State: McKinleyville, CA
    Comment: Please fund the Organic Agriculture Research and Extension 
Initiative at $30 million per year. Investment in agricultural research 
is vital to continued productivity and innovation in growing and 
diverse sectors of American agriculture, such as organic agriculture. 
As an eater, this is important to maintain the vitality and ability to 
feed all of us in the most healthful way possible, avoiding unnecessary 
contaminants and toxic chemicals.
                                 ______
                                 
                        Comment of Corinna Lewis
    Date Submitted: Friday, May 18, 2012, 12:37 p.m.
    City, State: Ithaca, NY
    Occupation: Program Coordinator
    Comment: Please pass the Healthy farm bill. I live in a rural 
community, and wish there were balanced incentives that promote the 
long term health of farmers, consumers and our land. But it is more 
like Wall Street, where you get rewards for pillaging today and leaving 
the bill for tax payers tomorrow. Please improve our democracy by 
improving smart, long-term planning. Thank you.
                                 ______
                                 
                        Comment of Donald Lewis
    Date Submitted: Friday, May 18, 2012, 10:00 p.m.
    City, State: Goode, VA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I was an Organic Dairy Farmer in Vermont 1950. Won The New 
England in Winter Green Pastures Contest over hundreds of Chemical 
Farmers. Wrote A Book, Leaned by the Fencepost. It is a story, 
information and education doing without chemical. Theme SOIL FOOD and 
Health. Can prove Organic is best.
                                 ______
                                 
                        Comment of Graham Lewis
    Date Submitted: Saturday, May 19, 2012, 2:17 a.m.
    City, State: Eugene, OR
    Occupation: Retired
    Comment: We the People are outraged at how the U.S. government has 
allowed Big Corporate/Industrial Agribusiness to squeeze out the family 
farmers who still give a damn about People Over Profits. Local and 
organic is the massive trend. I hope you catch up, sooner rather than 
later. Thank you.
                                 ______
                                 
                         Comment of Jill Lewis
    Date Submitted: Friday, May 18, 2012, 10:22 p.m.
    City, State: Horseheads, NY
    Occupation: Industrial Engineer and Strong Environmentalist
    Comment: In general the U.S. food and agricultural policy must 
focus on adopting best agricultural practices that put the health of 
its citizens, the land and the livelihood of farmers and farm workers 
over the interests of industrial agriculture lobbyists. Organic farming 
is critical to our health and we need to start labeling food that 
contains GMO's!
    We need you to fully endorse all provisions of the Local Foods, 
Farms and Jobs Act (H.R. 3286).
    Also, fully funding conservation programs, such as the Conservation 
Stewardship Program, and making sure that enrollment in any new 
insurance subsidies are tied directly to compliance with conservation 
programs.
    The implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236).
    Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Lawrence Lewis
    Date Submitted: Friday, May 18, 2012, 5:55 p.m.
    City, State: Osceola, MO
    Occupation: Retired Minister
    Comment:

    (1) I'd like to see compliance with conservation practices as a 
        requirement for receiving crop insurance assistance.

    (2) Let's retain value-added producer grants for existing food 
        procurement programs. That will encourage local food production 
        and processing, which in turn will increase food security for 
        our region and nation. Also, it opens the way for schools to 
        buy local, in-season food which will reduce the obesity rates 
        and enhance over-all health among our young people.

    (3) Retain effective conservation programs.

    (4) Fund beginning farmer/rancher development programs, which like 
        the value-added grants will strengthen local food production in 
        a decentralized way and hence strengthen the U.S. as a nation.

    (5) Fund organic agriculture research and extension initiatives, 
        for long-term better health for all.

    Thank you for your attention to my recommendations. The Missouri 
Environmental Coalition did the research that enabled me to form my 
convictions. As I live in a rural county seat town in western Missouri, 
the agriculture legislation will have a direct effect on people I know 
and on the quality of life in my region in the Osage River watershed.
                                 ______
                                 
                        Comment of Patrick Lewis
    Date Submitted: Friday, May 18, 2012, 3:18 p.m.
    City, State: Emeryville, CA
    Occupation: Retail Food Buyer
    Comment: I have worked in the food industry (either manufacturing 
or retail) for over 27 years of my life. As such, I feel qualified to 
state that the current farm bill is insufficient to support U.S. 
agricultural needs. We need to stop giving subsidies to huge 
agribusiness and insurance companies, and instead focus Federal funding 
on a more efficient and localized system to support the needs of the 
American people. I advocate for:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet>  The implementation of all provisions of the Beginning 
        Farmer and Rancher Opportunity Act (H.R. 3236).

  <bullet>  Maintaining the EQIP Organic Initiative.

    Please consider my comments equally as an average citizen despite 
my inability to compete vocally with those who may have greater 
influence on your committee due to the depth of their pockets. We need 
to create a level playing field for all, rather than the ``same old, 
same old'' which is failing the American people by repeatedly giving 
our tax $ to those Not in need of them. Thank you.

Patrick Lewis.
                                 ______
                                 
                       Comment of Priscilla Lewis
    Date Submitted: Tuesday, May 15, 2012, 6:49 p.m.
    City, State: Portland, OR
    Occupation: Health Care Administration
    Comment: Dear Representative Bonamici,

    I am writing to stress the importance of reauthorizing the farm 
bill for hungry Oregonians. Oregon ranks number 1 in childhood hunger 
nationally--SNAP and TEFAP are essential for ensuring that these 
children have any shot at a healthy future.
            Best,

Priscilla Lewis.
                                 ______
                                 
                         Comment of Vicki Lewis
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: Olympia, WA
    Occupation: Retired
    Comment: It is time to get rid of tax breaks to big farm operators 
and give to the small farms and organic farmers. They are the future of 
this country. Stop GM food.
                                 ______
                                 
                       Comment of Marianne Lewman
    Date Submitted: Saturday, May 19, 2012, 12:49 p.m.
    City, State: Manson, WA
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: My husband grows apples the conventional way. In order to 
grow organically the growers surrounding us need to do the same. The 
``system'' does not support organic. We can't go to Wilber Ellis or 
Northwest Wholesale for support if we want to cut down on the dangerous 
chemicals. The industry won't change unless they are forced to for 
monetary reasons, or if mandated. Our beautiful valley is choked with 
chemicals.
                                 ______
                                 
                        Comment of Oliva Leyton
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Los Angeles, CA
    Occupation: Self-Employed
    Comment: Please, Please, do everything you can to help protect 
small farmers and their ability to carry on their livelihood, both 
conventional and organic farmers alike. Don't let big ag squeeze them 
out because they don't want the competi-
tion . . . we the people Want our small, local farms!
                                 ______
                                 
                          Comment of Barry Lia
    Date Submitted: Friday, May 11, 2012, 5:47 p.m.
    City, State: Seattle, WA
    Occupation: Consultant
    Comment: I am an urban homesteader and consultant, researcher, and 
educator in biodynamic husbandry. We need support for research in 
organic, biodynamic, permaculture, and agroecological farming. See the 
National Research Council report, Toward Sustainable Agricultural 
Systems in the 21st Century.* We need support for educating and 
training these new farmers.
---------------------------------------------------------------------------
    * Editor's note: the report, Toward Sustainable Agricultural 
Systems in the 21st Century, is available at http://www.nap.edu/
catalog.php?record_id=12832. The ``Brief'' is retained in Committee 
files.
---------------------------------------------------------------------------
                                 ______
                                 
                         Comment of Linda Liang
    Date Submitted: Friday, May 18, 2012, 2:34 p.m.
    City, State: San Francisco, CA
    Occupation: Professional
    Comment: I want the House of Representatives to make policies that 
support small-scale family farmers who are stewards of our land and 
nourish our communities with clean, healthy food.
                                 ______
                                 
                        Comment of Wendie Libert
    Date Submitted: Friday, May 18, 2012, 12:42 p.m.
    City, State: Washburn, WI
    Occupation: Registered Nurse/Adjunct Faculty WI Indianhead 
Technical College
    Comment: It is clear from an ever-growing body of research that our 
current short-sighted practices in agriculture/agribusiness put the 
health of people across the globe and the very sustainability of life 
on this planet at risk. I am, as healthcare professional and American 
consumer, in support of development of agricultural policy and 
practices that focus on unbiased and transparent research information, 
promoting local food production, supporting family and small-scale 
producers, promoting biodiversity in food production, and supporting 
organic/sustainable farming methods. It is not acceptable to me for 
policy-makers to continue to subsidize agricultural practices based on 
``big business'' at the expense of the livelihood of small producers 
and the health and wellbeing of human beings. This is the basis of my 
voting decisions.
                                 ______
                                 
                         Comment of Robin Libow
    Date Submitted: Friday, May 18, 2012, 5:10 p.m.
    City, State: New York, NY
    Occupation: ESL Teacher
    Comment: I am disgusted by the amount of taxpayer money that is 
going to grow tons and tons of soy and corn, that goes only to 
Agribusiness.
    It is about time my government responds to the needs of the obesity 
crisis among children and adults in this country, and supports small 
local farmers, and subsidizes Vegetables and Fruits, not fast food and 
corn, and agribusiness.
                                 ______
                                 
                      Comment of Julianna Lichatz
    Date Submitted: Friday, May 18, 2012, 3:44 p.m.
    City, State: Carbondale, CO
    Occupation: Teacher
    Comment: I support a right to choose from whom I buy my food. I 
want my food labeled and I want to be able to buy, local, non-
fertilized, non-herbicided, non-GMO food. Please support family farmers 
and local economies.
                                 ______
                                 
                      Comment of Regan Lichtenberg
    Date Submitted: Wednesday, May 02, 2012, 10:40 a.m.
    City, State: Baltimore, MD
    Occupation: Student
    Comment: Hello Congressman Sarbanes, below are some priorities that 
I feel are important when it comes to the farm bill:

  <bullet> I know you have a record of being concerned about the 
        environment and fighting for it, especially when it comes to 
        the Bay. I believe it is very important that we continue to 
        fight for the environment in the farm bill by not forgetting to 
        focus efforts and resources on conservation.

  <bullet> Also I think a large chunk of farm bill resources should be 
        allocated to the nutrition and horticulture committee. I know 
        that now the majority of resources go to food programs, and I 
        think that this causes other aspects of this committee to be 
        overlooked. More subsidies for organic growers and ``specialty 
        crop'' growers should be available in order to encourage 
        diversified farms

  <bullet> Finally I think that there should be a place in the farm 
        bill this year for programs that help to encourage and train 
        young farmers
                                 ______
                                 
                      Comment of Yehudit Lieberman
    Date Submitted: Thursday, May 17, 2012, 9:12 p.m.
    City, State: Pleasant Hill, CA
    Occupation: Musician
    Comment: As a subscriber to a local CSA, I want a farm bill that:

  <bullet> supports small, local, organic farming and farmers,

  <bullet> promotes access to healthy, locally grown fresh food for all 
        Americans, regardless of economic circumstances,

  <bullet> cuts subsidies for large-scale farms growing commodity 
        crops,

  <bullet> increases funding for the Conservation Stewardship Program 
        and other programs that promote soil and habitat conservation,

  <bullet> discourages the intensive use of chemicals and the 
        unregulated planting of GMO crops.
                                 ______
                                 
                       Comment of Michael Lillie
    Date Submitted: Wednesday, May 09, 2012, 4:11 p.m.
    City, State: Sterling, VA
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Nuts, Specialty Crops, Vegetables, Other
    Size: Less than 50 acres
    Comment: The future of farming will require an infrastructure 
investment, training, college incentive and public marketing to turn 
America back into a healthy country. Food impacts literally every 
faucet of our economy. Understand that you, the government, are holding 
the purse strings which have the capability to make America the leading 
exporter of every major crop. It's time we grow our way out of the 
Great Recession.
                                 ______
                                 
                     Comment of Michael Lilliquist
    Date Submitted: Friday, May 18, 2012, 3:27 p.m.
    City, State: Bellingham, WA
    Occupation: Municipal Official in Agricultural County
    Comment: I am very concerned that the farm bill is headed in the 
wrong direction, away from healthy foods and sustainable agriculture. I 
fear that the bill would continue unwise subsidies to commodity crops, 
rather than continued nutritional aid and support for a wide range of 
food crops, organic farms, and locally-produced and locally consumed 
produce.
    In particular, I urge full inclusion of all parts of H.R. 3286, the 
Local Food, Farms, and Jobs Act, as well as carrying out all aspects of 
H.R. 3236, the Beginning Farmer and Rancher Opportunity Act.
    Do not cut organic farming research funding!
    Do not replace direct commodity subsidies with an even worse 
subsidized insurance scheme! There needs to be caps or limits on the 
subsidies available to giant agro-businesses and to insurance 
companies.
    We need real reform, and the committee's version fall very wide of 
the mark. Please re-focus on healthy foods and smaller farmers, who 
genuinely need support and government cooperation.
                                 ______
                                 
                       Comment of David Limperes
    Date Submitted: Saturday, May 19, 2012, 11:10 a.m.
    City, State: Sheboygan Falls, WI
    Occupation: Unemployed
    Comment: Stop taxing, stop subsidizing, stop Meddling. Get Out of 
the business of trying to ``manage'' an industry you know Nothing 
about. Let the free market work.
    We will be watching very carefully, and taking note of your names 
and actions, to be evaluated and Widely distributed in Your next 
election.
                                 ______
                                 
                      Comment of Laura Lindekugel
    Date Submitted: Friday, May 18, 2012, 2:16 p.m.
    City, State: Minnetonka, MN
    Occupation: Photographer
    Comment: I hope that the committee will work to end or reduce 
subsidies and insurance to corporate and large-scale farming operations 
and implement support for small operations growing fruit and 
vegetables, especially organics.
                                 ______
                                 
                     Comment of Justin Lindenmayer
    Date Submitted: Friday, May 18, 2012, 1:31 p.m.
    City, State: Farmington, CT
    Occupation: Student
    Comment: The farm bill is our best chance at addressing 
environmental and health related issues that are destroying our 
country. Please let the 2012 Farm Bill address some of these issues 
before we lose yet more time.
                                 ______
                                 
                        Comment of Denise Lindow
    Date Submitted: Friday, May 18, 2012, 11:39 a.m.
    City, State: Cornville, AZ
    Producer/Non-producer: Producer
    Type: Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: I would like to see more emphasis on local food 
production/distribution, more sustainable food operations and the total 
elimination of subsidies that turns farmers into cogs in a wheel 
instead of our first line of defense in our nation's food security. 
More concentration of production only weakens us as a nation.
                                 ______
                                 
                       Comment of Annie Lindstrom
    Date Submitted: Friday, May 18, 2012, 7:48 p.m.
    City, State: Cape Coral, FL
    Occupation: Writer
    Comment: Please provide support for more small local chemical free 
(organic) farmers! And write a law that requires GMO's to be labeled. 
Also, do not allow FDA to let ingredients go unlisted such as new sugar 
substitutes, etc. I want to Know what is in my food. Support diversity 
in farming. We need variety and local access to food. Thanks for 
listening.
                                 ______
                                 
                      Comment of Andrea Linebaugh
    Date Submitted: Friday, May 18, 2012, 2:38 p.m.
    City, State: York, PA
    Occupation: Self-Employed/Student
    Comment: Monsanto, it's products, it's policies--let's just say 
Hell No!
    We don't want genetically modified foods! We want organic, 
heirloom, back to nature--the way GOD intended.
    I don't care what policies you enact as long as it supports local, 
organic, and small farmers. It should put a stop to chemicals and 
poisons used in the growing of foods and label those that are grown 
using it. Label those GMO foods. I don't want that crap in my food 
supply. Support local family farms and get rid of factory farms.
                                 ______
                                 
                        Comment of Julian Lines
    Date Submitted: Friday, May 18, 2012, 3:27 p.m.
    City, State: Mount Tremper, NY
    Occupation: Retail Store
    Comment: My son farms and I am a member of Community Supported 
Agriculture. I want you to support small independent farmers, crop 
insurance and organic farmers. The effects of chemicals on bees is of 
national and international importance. Prioritize for the one's who 
keep us healthy.
                                 ______
                                 
                          Comment of Noah Link
    Date Submitted: Thursday, May 17, 2012, 8:58 p.m.
    City, State: Detroit, MI
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Field Crops, Fruits, Greenhouse/nursery, 
Nuts, Poultry/poultry products
    Size: Less than 50 acres
    Comment: I am a young organic farmer on several acres in the city 
of Detroit. As you know, it is extremely difficult for new farmers to 
obtain land and capital needed for equipment and supplies, despite 
surging interest and participation in organic farming. My business has 
developed thanks to a loan from our state's Farm Service Agency and the 
Beginning Farmers and Ranchers program. These programs are essential to 
supporting new farms and businesses. As a strong supporter of organic 
farming, I ask that you to:

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Program.
                                 ______
                                 
                        Comment of Adrian Linton
    Date Submitted: Friday, May 18, 2012, 8:37 p.m.
    City, State: Mountlake Terrace, WA
    Occupation: Facilities Rep.
    Comment: Hello, I think when deciding on a bill that influences the 
nation's food supply it is important to consider all opinions in the 
matter, the interests that generates those opinions and what percentage 
of the population those interests represent. I do not want to demonize 
big business as there will always be a place for big business. However, 
there is no denying that when considering the subject of agriculture 
the interests of the mufti-national companies involved in the matter 
are tied primarily to the free-market and generating profitability, not 
the sustainability of the land and welfare for the farmers who tend the 
land. It is also important to point out that although the opinions of 
the big companies involved in this issue, though incredibly 
influential, represents by law only one ``person'' who exists in a 
group of similar corporate ``persons'' which combined equates to a tiny 
fraction of the population who have rights under the law. If we truly 
are being democratic and putting the welfare of the land, the farmers 
and greater population who will consume the food we need to consider 
more than the opinions of our fellow corporate ``persons'' and look at 
this bill holistically in terms of what is truly the best long terms 
agricultural practices that put the health of its citizens, the land 
and the livelihood of farmers and farm workers first. The latter part 
of the aforementioned groups involved represent undeniably a massively 
larger percentage of the population than our fellow corporate 
``persons''.
            Thank you for hearing my thoughts,

Adrian.
                                 ______
                                 
                         Comment of Rita Lipham
    Date Submitted: Friday, May 18, 2012, 5:57 p.m.
    City, State: Oxford, AL
    Comment: As a consumer I desire to purchase food items that are 
grown locally by local farmers growing natural and organic produce. 
Farmers raising animals in environments which are natural to the 
particular animal eating foods which are natural and organic to the 
animal and therefore the animal is able to digest the food they are 
given--food without unnecessary antibiotics, hormones of various sorts, 
etc. Healthy food promotes healthy people.
                                 ______
                                 
                       Comment of Suzanne Lipkin
    Date Submitted: Wednesday, May 16, 2012, 10:56 a.m.
    City, State: Brooklyn, NY
    Occupation: Nonprofit Program Officer
    Comment: A $36 billion cut to SNAP is not the way to go. The 
Committee should focus on writing a farm bill that creates economic 
opportunity and improves access to healthy, affordable food for all 
Americans.
                                 ______
                                 
                         Comment of Vicki Lish
    Date Submitted: Friday, May 18, 2012, 10:52 a.m.
    City, State: Pittsburgh, PA
    Occupation: Farm Stand Coordinator
    Comment: Feeding our neighbors is a public-private partnership, and 
I am doing my part and I want our government to do its part.
    Cutting anti-hunger programs will increase hunger in America, as 
well as the associated health care, educational, and economic costs of 
food insecurity and poor nutrition.
    Please remember the families who are struggling in our community, 
and we must protect and strengthen important anti-hunger programs like 
TEFAP, SNAP, and CSFP in the 2012 Farm Bill reauthorization.
                                 ______
                                 
                         Comment of Lynn Liston
    Date Submitted: Friday, May 18, 2012, 9:16 a.m.
    City, State: Belvidere, IL
    Occupation: Infant/Early Childhood Mental Health Consultant
    Comment: I am a member of a CSA-community supported agriculture-
farm. I belong to a community food coop and I have gardened my whole 
life. Small family farms and community supported farms increase the 
availability of fresh quality food for all. Subsidies to large 
agribusinesses hurt these local sustainable efforts and benefit only 
the wealthiest producers.
    Please level the field.
                                 ______
                                 
                        Comment of Merci Littaua
    Date Submitted: Friday, May 11, 2012, 2:43 p.m.
    City, State: Fontana, CA
    Occupation: Service Coordinator
    Comment: Dear Congressman Baca:

    I do believe that as a member of the Agricultural Committee you are 
already and always doing your best in ensuring that programs supporting 
the poor and hungry are maintained and sustained. I personally, thank 
you for all these things that you do. Thru this letter I just want you 
to know that I am joining those little voices, like me, reminding you 
to take our voices with you to the Congress, as you consider the 2012 
Farm Bill.
    As the economic condition gets tougher and tougher, the more that 
All of us rely on those who toil the soil, plant the crops, and move 
the produce from the farm to our table.
    Please do all you can so that they who cultivate the land, grow and 
gather the harvest, can have more resources--financial, technology, 
communications and transportation services, available to them so that 
they can do best in providing food to feed the world, especially those 
who have less or even, do not have anything to eat.
    God bless.

Merci Littaua,
Diocese of San Bernardino.
                                 ______
                                 
                   Comment of Kara Littell-McWilliams
    Date Submitted: Saturday, May 19, 2012, 11:45 p.m.
    City, State: Byron, CA
    Occupation: Caregiver
    Comment: I am very concerned about the quality of the nation's food 
supply. I am concerned that profit driven big Ag will trump good, sound 
policies that protect the small farmer, organic farmer and most 
importantly, the public. I believe that big Ag will always succumb to 
the ``fiduciary responsibility'' they have to their stockholders and 
their own coffers over the moral, ethical and health driven 
responsibility they have for the nation's food supply. The House 
Agriculture Committee's responsibility is to the people of this nation 
and their expectations of protection, not to lobbyists and their 
hundreds of thousands of ``donations''. My expectation is for bi-
partisan support of what is morally and ethically ``right''. This 
should not be ``political''. This is about people's lives. Stop playing 
Russian roulette with us.
                                 ______
                                 
                       Comment of Anthony Little
    Date Submitted: Friday, May 18, 2012, 11:56 a.m.
    City, State: Philadelphia, PA
    Occupation: Medical Research Associate
    Comment: Please provide adequate funding for the Beginning Farmer 
and Rancher Development Program. Please support initiatives that reduce 
soil erosion and provide meaningful opportunities for small/rural 
farmers and their communities instead of massive agricultural 
businesses that do not use sustainable methods. Protect the health of 
Americans first and foremost.
                                 ______
                                 
                      Comment of Shanna Livermore
    Date Submitted: Wednesday, May 09, 2012, 4:41 p.m.
    City, State: Ontario, CA
    Occupation: Student
    Comment: Feeding America's, Hunger in America 2010, study unearthed 
some startling facts about senior hunger that everyone should know:

  <bullet> In 2010, 7.9 percent of households with seniors (2.3 million 
        households) were at risk;

  <bullet> 30 percent of client households with seniors indicated that 
        they have had to choose between food and medical care and 35 
        percent have had to choose between food and paying for heat/
        utilities;

  <bullet> In 2009, nearly 9 million people over the age of 50 and 
        nearly 4 million people over the age of 60 lived in at-risk 
        households.

    Cuts to SNAP (food stamps)--like the ones currently under 
consideration in the farm bill--would further limit access to the food 
and nutrition programs that millions of older Americans rely on. 
Meanwhile, the Commodity Supplemental Food Program (CSFP), which 
provides monthly boxes of food to low-income seniors, faces its own 
funding threats. These issues matter. What will seniors do if they no 
longer have access to these vital programs?
                                 ______
                                 
                      Comment of Helen Livingston
    Date Submitted: Friday, May 18, 2012, 10:14 p.m.
    City, State: Laurinburg, NC
    Producer/Non-producer: Producer
    Type: Field Crops, Forestry, Specialty Crops, Vegetables
    Size: 500-999 acres
    Comment: My family has both conventional farming and organic 
farming. The need for a shift towards local, organic is clear to me. My 
own health has been affected by ag. chemicals. For the sake of the 
costs of health care, care must be taken to care for our food.
                                 ______
                                 
                     Comment of Richard Livingston
    Date Submitted: Sunday, May 20, 2012, 9:54 a.m.
    City, State: New Canaan, CT
    Occupation: Finance
    Comment: Consolidation of our food production into a handful of 
monster organizations is dangerous on many levels, not to mention 
economic monopolization, lack of diversification and ``too big to 
fail'' issues. Please do the right thing and give the small guys a 
chance. Get rid of the ag subsidies to these behemoth companies and 
open up the market to consumer driven healthier food!
                                 ______
                                 
                   Comment of Sally Livingston, R.D.
    Date Submitted: Tuesday, May 15, 2012, 6:40 p.m.
    City, State: Fairfield, CA
    Occupation: Registered Dietitian/Nutrition Consultant
    Comment: As a Registered Dietitian, I am writing to share my 
concern about hunger in California. With unemployment still high and 
many Americans still struggling to make ends meet, anti-hunger programs 
are helping many of our neighbors just put food on the table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance. 
Feeding our neighbors is a public-private partnership. I try to do my 
part by supporting the Food Bank of Contra Costa and Solano.
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP) and 
The Emergency Food Assistance Program (TEFAP), which are authorized in 
the farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP and SNAP in the 2012 Farm Bill reauthorization.
                                 ______
                                 
                      Comment of Beverly Lizanich
    Date Submitted: Monday, May 07, 2012, 5:49 p.m.
    City, State: Sandusky, OH
    Occupation: Agency Relations Manager, Second Harvest Food Bank of 
North Central Ohio
    Comment: Hunger is not a partisan issue. Please unite and all stand 
with us and the families, children and seniors we assist. I am the 
Agency Relations Manager at Second Harvest Food Bank of North Central 
Ohio. I respectfully request that you pass a farm bill that protects 
and strengthens programs like SNAP, TEFAP, and CSFP. The counties we 
serve in Ohio (Erie, Huron, Crawford and Lorain)cannot afford cuts to 
these programs, as many families we serve are still struggling. 77, 200 
families are seeking assistance annually in our service area, a 134% 
increase in demand for emergency food assistance since 2006. (Hunger in 
America, 2010) Second Harvest and our agencies are working hard to meet 
the needs of our communities, utilizing volunteers and donated 
products. However, with such an increase in demand, higher food and gas 
prices, and declines in TEFAP commodities, our agencies are having 
serious difficulty. TEFAP is a major source of the food we distribute 
and a decrease in SNAP benefits will overflow our emergency food 
pantries and soup kitchens, which are already serving record numbers of 
people each month. We need your commitment to help us assist struggling 
families to put food on their table. Thank you for your support.
                                 ______
                                 
                         Comment of Deja Lizer
    Date Submitted: Saturday, April 28, 2012, 7:57 p.m.
    City, State: Asheville, NC
    Occupation: Operations Manager
    Comment: I am a supporter of Feeding America and my local food 
bank. Despite the recent improvement of the economy, there are still 
many people who may not know where their next meal will come from. We 
need a strong farm bill to help put food on the table for vulnerable 
children, seniors, and low-income families. Please pass a farm bill 
that protects and strengthens programs like TEFAP, SNAP, and CSFP. 
Cutting these programs is not the way to balance the budget. I urge you 
make them a priority in the next farm bill. If it weren't for 
assistance programs, I would have gone without many meals a child and 
teenager. My father contracted Polio as a child, and worked hard to 
further his education while us kids were young. That was because 
without additional education he could not provide for a family of 5. I 
was able to eat breakfasts at school that I would have otherwise 
missed, as well as lunches. We had food for dinners and I was able to 
focus on school work and do well enough to get grants and scholarships 
so that I could attend college. Please help feed these children and 
families. It made all the difference for me growing up, and I am able 
to donate my time and money to local programs that assistance children 
and families in the same predicaments.
                                 ______
                                 
                         Comment of Jane Lloyd
    Date Submitted: Friday, May 18, 2012, 1:59 p.m.
    City, State: Anacortes, WA
    Occupation: Artist
    Comment: Agriculture policy should be set by what's best for the 
health of the citizens and planet not by chemical companies and big 
agra corporations that are literally poisoning us through tainted food 
and water supply as well as air born chemicals and ones out-gassing 
into our environment. There is enough evidence that organic is better! 
Do the right thing!
                                 ______
                                 
                         Comment of Kurt Lloyd
    Date Submitted: Friday, May 18, 2012, 12:48 p.m.
    City, State: Hudson, NH
    Occupation: Engineer
    Comment: It is critical that we move swiftly toward a different way 
of growing food. One where smaller-scale organic farming is the norm, 
not the large unnatural monoculture techniques. I am not a science 
experiment . . . genetically engineered crops are totally unnecessary, 
are insufficiently understood, and should be banned from widespread 
use. Health of the soil should be paramount, unlike what has happened 
to the soil of this country after decades of bombardment with unnatural 
chemicals and practices. We could easily reduce health care costs in 
this country by more than 50% if everyone migrated to a diet so 
incredibly more natural than the totally absurd diet that the vast 
majority of the people in this country eat today. Our agricultural 
policy must be changed drastically to facilitate this.
                                 ______
                                 
                          Comment of Anna Loar
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: Middletown, CT
    Occupation: Technical Specialist, Yale University
    Comment: I am writing today to ask that the HAC support a farm bill 
that puts the interests of farm workers, citizens, and consumers ahead 
of the profits of large agribusinesses. This would include:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    In addition, we as citizens are concerned with the governmental 
lack of concern for both citizen outcry and a flood of scientific data 
that showing that genetically modified foods are linked to a range of 
health problems and should be clearly labeled if they are approved at 
all.
                                 ______
                                 
                        Comment of James Lobdell
    Date Submitted: Friday, May 18, 2012, 4:15 p.m.
    City, State: Santa Rosa, CA
    Occupation: Retired College Professor
    Comment: We urgently need a farm bill that doesn't compromise 
standards for the health and safety of farm workers and consumers. I 
know lots of farmers because I grew up in farming country and currently 
reside in an area where farming is one of the major industries. As a 
consumer, I want to be sure my food is safe, and I'd like it to be 
locally produced, not shipped in from some factory farm whose practices 
are unknown and probably suspect.
                                 ______
                                 
                       Comment of Margaret LoBue
    Date Submitted: Wednesday, May 09, 2012, 9:35 a.m.
    City, State: Orlando, FL
    Occupation: Retired
    Comment: I volunteer at my church's food pantry and have seen the 
numbers of families needing food assistance increase dramatically over 
the years. How can we reduce the aid available to these families when 
the economy is so distressed? Please help them and find some other area 
to cut expenses.
                                 ______
                                 
                       Comment of Georgia Locker
    Date Submitted: Saturday, May 19, 2012, 12:08 p.m.
    City, State: Fort Collins, CO
    Occupation: Retired
    Comment: The farm bill must remove subsidies for corn. It must 
support small farmers. It must support organic farming. It absolutely 
must oppose the Monsanto chemical alterations of corn, canola, rice, 
etc. They are bad for the environment, with the increased use of 
herbicides and pesticides, bad for our health.
                                 ______
                                 
                       Comment of Trent Lockhart
    Date Submitted: Thursday, May 10, 2012, 11:52 p.m.
    City, State: Bloomington, IN
    Occupation: U.S. Air Force Active Duty Service Member
    Comment: I support the strengthening and protection of nutritional 
assistance programs funded by the farm bill. I read and hear so much 
about efficiency and the current economic situation, but I cannot help 
but feel disgusted at the idea that we would cut into much needed 
programs for low-income families to balance debt and fix a financial 
crisis so firmly connected to the wealthy in our society. Fraud, waste, 
and abuse should be eliminated at all levels of government and in all 
Federal and state programs, but reducing benefits for those in need is 
nothing short of immoral.
    I have been a recipient of nutritional assistance, and it helped 
bridge the gap for my family between post-student temporary jobs and my 
current full-time position in the Air Force. My family accepted help so 
that we didn't become dependent on nutritionally defunct cheap food 
sources when our income wasn't steady. Once we found solid financial 
footing, we began supporting ourselves. Keep nutritional assistance 
programs strong for the future of this country.
                                 ______
                                 
                       Comment of Cory Lockington
    Date Submitted: Friday, May 18, 2012, 5:17 p.m.
    City, State: La Crosse, WI
    Occupation: Workplace Manager
    Comment: Small farms that can produce local foods without chemicals 
are the most helpful and least harmful entity in the food chain. Family 
farms need protection from corporations that are using Americans as 
chemical testing lab rats. I do not want arsenic in my chicken or corn 
in my beef. I do want non-toxic food. I do not want GMO's in any of my 
foods and I do want All GMO's to be labeled like other countries.
                                 ______
                                 
                      Comment of Diane Lockspeiser
    Date Submitted: Saturday, May 19, 2012, 7:30 p.m.
    City, State: Melville, NY
    Occupation: Artist, Herb Gardener at a local CSA
    Comment: I am not good with details, but I do know that for the 
public health we do need to discourage CAFOs, GMOs, and pesticide/
herbicide use and better support the small, healthy farms.
                                 ______
                                 
                       Comment of Edward Loeffler
    Date Submitted: Saturday, May 19, 2012, 12:05 p.m.
    City, State: New York, NY
    Occupation: Retired
    Comment: Stop giving huge farm subsidies to MegaFoods and start 
giving help to the new, small farmers. Corporate agribusiness shouldn't 
have the influence that it does over regulations, as is easily shown by 
the food poisoner corporation Monsanto.
                                 ______
                                 
                       Comment of Anne Loftfield
    Date Submitted: Tuesday, May 08, 2012, 1:23 p.m.
    City, State: Tucson, AZ
    Producer/Non-producer: Producer
    Type: Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: We are working hard to grow healthy non-GMO foods through 
biodynamic methods which enhance our soil rather than deplete it, using 
all our resources as efficiently as possible, yet our tax dollars are 
passed out to corporate farms who are raping our land. The food stamp 
program sounds good on paper but is producing a dependent society which 
is getting more obese each day; is that your intention?
                                 ______
                                 
                        Comment of Corinne Logan
    Date Submitted: Saturday, May 19, 2012, 10:13 a.m.
    City, State: Boise, ID
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: The subsidies and entitlements have Got To End! It is 
ridiculous that we still have such wasteful spending going on to the 
tune of Billions of dollars. Stop the subsides and entitlements and 
food prices will be what they are.
                                 ______
                                 
                         Comment of Shane Logan
    Date Submitted: Friday, May 18, 2012, 4:46 p.m.
    City, State: Interlaken, NY
    Occupation: Chef
    Comment: I am concerned with the state of the American diet. 
Subsidizing socially disadvantaged farmers, local farmers markets and 
local organic farms is important to me because right now eating an 
unhealthy meal is cheaper than farm fresh food and proper nutrition is 
the base from which we need to fight hunger.
                                 ______
                                 
                    Comment of Kathleen Logan Smith
    Date Submitted: Saturday, May 19, 2012, 6:08 p.m.
    City, State: Saint Louis, MO
    Occupation: Executive Director, Missouri Coalition for the 
Environment
    Comment: Dear House Agricultural Committee:

    On behalf of the Missouri Coalition for the Environment, our 
members and our Board, thank you for the opportunity to submit comments 
on the 2012 Farm Bill.
    We work to promote stewardship of Missouri's soil and water 
resources, to reduce our dependence of fossil fuels and encourage food 
and energy security.
    Nothing concerns thoughtful Americans more than the state of our 
nation's food supply and the water and soil resources upon which its 
productivity depend. The 2012 Farm Bill will succeed if it responds to 
that concern through the following key measures:

    1. Restoring the link between conservation compliance and crop 
        insurance subsidy programs.

    Because of the important role farmers play in our food system, 
taxpayers have supported a safety net for farmers for nearly 30 years, 
always in return for a guarantee that subsidized farmers will follow 
basic conservation practices in their fields. This revolved around the 
basic realization that while Americans needed food, it was critical to 
utilize conservation practices in order to preserve the economic 
viability and productivity of our farmlands and resources for the 
future.
    As the House Agriculture Committee prepares their draft of the farm 
bill, I urge you to restore the link between taxpayer-supported 
subsidies for crop insurance and conservation compliance protections 
that will protect the nation's water and land.
    This action is especially important as Congress considers 
eliminating direct payments, the major subsidy program that is linked 
to conservation compliance, and moving some of those funds to support 
increased subsidies for crop insurance, which lacks compliance 
requirements. Unless you help to reconnect crop insurance subsidies to 
conservation compliance, a significant part of farmers' incentive to 
follow conservation plans will disappear this year.
    Farmers need crop insurance as part of their safety net and the 
public needs basic conservation practices on farms to make sure that 
quality farm land and water can support future generations as well as 
the current needs of our country. We cannot accept sacrificing long-
term economic and environmental sustainability for short-sighted and 
short-term economic profits.
    Connecting eligibility for crop insurance subsidies to conservation 
compliance is fiscally responsible and ensures public subsidies for 
farmer's insurance premium payments align with the public's interest in 
basic conservation of our soil and water.
    Missouri's water and soil resources are suffering now as farmers 
violate conservation agreements and ignore good conservation practices 
while still collecting taxpayer subsidies. This must end. Taxpayers 
should not be subsidizing destruction. Our state is among the top five 
in the nation for soil loss and our farmers need incentives to save 
soil--not to abuse it.

    2. Meaningfully incorporate whole farm insurance for diversified 
        farming operations and beginning farmers.

    Producers of diversified, non-commodity crops and livestock need to 
be able to manage their risks too. A crop insurance policy that offers 
a whole farm revenue protection plan to protect against low revenue due 
to unavoidable natural disasters and market fluctuations would allow 
farmers to insure all the crops grown to feed Americans. Effective risk 
management products also need to be available nationwide. And they too 
Must require conservation compliance to protect soil and water 
resources.
    3. Capping premium subsidies.

    Currently there are some proposals circulating that would limit the 
amount of crop insurance subsidies--which make good sense and would 
help ease the burden on the taxpayers.
    4. Cutting payments to crop insurance companies and agents.

    Recent data indicate that crop insurance companies and agents 
collect $1 for every $1 farmers receive in crop insurance. Congress 
could generate significant savings and more than eliminate the need to 
slash anti-hunger or environmental programs by setting a more modest 
payment level.
    5. Strengthen ``sod buster'' and ``swamp buster'' provisions in ALL 
        Farm programs.

    The pursuit of profits from commodity crops, and their accompanying 
lucrative revenue insurance programs, has enticed farmers across the 
plains to plow grasslands and prairie and drain wetlands though they 
can never hope to get a consistent and decent harvest on those lands--
except what profits are harvested from taxpayer funded programs. 
Planting commodity crops in most of the dry and arid Texas panhandle 
and irrigating it with the non-renewable Ogallala Aquifer is one 
example of where our tax dollars are sent to just blow in the wind--
along with the thin layer of eroding soil. Ground suited to tumbleweeds 
and prickly pear cactus or to cattails and water lilies--should not 
receive crop-oriented taxpayer dollars because they do us more good 
left undisturbed (and cost less too). Plowing these marginal grounds 
increases water pollution, soil erosion, and destroys important 
ecosystem functions. It's a foolish short-term gamble and the 2012 Farm 
Bill needs to stop it from being a taxpayer payout.

    6. Maintain funding for conservation programs.

    Title II funding continues to be eroded farm bill after farm bill. 
Proven programs, like the Wetland Reserve Program, should be maintained 
and funded. Per producer caps for each program would a prudent way to 
maximize the impact and productivity of these programs.

    7. Include mandatory funding for Beginning Farmer and Rancher 
        Development Program.

    Food creates jobs. Let us create these in America and increase our 
food security in the process by growing the next generations of farmers 
and ensuring they are trained and equipped to produce healthy food and 
conserve critical resources. The National Sustainable Agriculture 
Campaign recommends $30 million in mandatory funding. With an aging 
farm population, now is the time to invest in the future of American 
agriculture by nurturing new agriculture start-ups.

    8. Help grow jobs by retaining programs like the Value Added 
        Producer Grants Program.

    Guarantee $30 million of mandatory funding per year. VAPG provides 
seed money to help farmers innovate in agriculture and create jobs 
while securing a sustainable path to market-based farm profitability.

    9. Help grow local farm economies and support healthy food in 
        schools by providing flexibility for states to use existing 
        food procurement programs to purchase fresh, healthy food from 
        local farmers and ranchers.

    10. Secure our food future and fund the Organic Agriculture 
        Research and Extension Initiative at $30 million per year in 
        mandatory funding.

    Investment in agricultural research is vital to continued 
productivity and innovation in growing and diverse sectors of American 
agriculture, such as organic agriculture.
    Thank you for your commitment to America's food system.
            Yours truly,

Kathleen Logan Smith,
Executive Director
Missouri Coalition for the Environment
[Redacted], St. Louis, MO,
www.moenviron.org
[Redacted].
                                 ______
                                 
                       Comment of Sharon Lohrmann
    Date Submitted: Thursday, May 17, 2012, 8:29 p.m.
    City, State: Sisters, OR
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 50-150 acres
    Comment: The time to support organic farmers is now! I own cropland 
and I am a cancer survivor. I understand the importance of what we eat, 
breathe and drink. Please consider our future generations when 
contemplating the various aspects of the next farm bill.
                                 ______
                                 
                        Comment of Rebecca Loken
    Date Submitted: Friday, May 18, 2012, 4:35 p.m.
    City, State: Lake Nebagamon, WI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: What really bothers me the most is how tight the FDA and 
Monsanto is. The former lawyer for Monsanto is the head of the FDA. 
That is absurd!
    The Farm Bill should be small farmer friendly, not just corporate 
friendly.
                                 ______
                                 
                       Comment of Robert Lombardo
    Date Submitted: Friday, May 18, 2012, 3:44 p.m.
    City, State: Boulder, CO
    Occupation: Computer Support
    Comment: I understand that there are strong incentives to continue 
taking from the poor to give to the rich but I ask that you please 
consider the long term results of such unethical behavior. Thou there 
is no compelling reason to do the right thing for America and 
American's, there should be and you should not need to be compelled to 
do what you were elected to do.
                                 ______
                                 
                      Comment of Scheryl LoMonico
    Date Submitted: Friday, March 16, 2012, 5:50 p.m.
    City, State: Ft. Edward, NY
    Occupation: Retired Professional and Homeowner
    Comment: I am a retired professional who cares deeply about the 
environmental impact that farming has on our rivers, soil, oceans, and 
the meats and produce grown for our consumption. I am fortunate to be 
able to afford organic produce and locally grown, grass-fed meats. I 
know by talking to the farmers at the Saratoga Springs and Glens Falls 
markets how important sustainable farming is to them. I buy only those 
products that I know do not have additives and have been grown using 
organic methods. The farming industry in our country is decades behind 
the industries in Europe, the UK and Australia/New Zealand. I would 
like to see more conventional farms and dairies change to organic 
methods. I don't want RBHT used on dairy cows ever! I recently saw a 
sign in the dairy section of my local supermarket apologizing if I 
could not find organic milk, as the supply could not keep up with the 
demand. Now that's saying something. I will continue to speak with my 
dollars, and I know others will too. We need your help to make our 
farmers change their methods. They need our support, and I want my tax 
dollars to work for them and, indirectly, for the consumers. Our land 
and waterways and the creatures living on or in them deserve to be free 
of chemicals. I'll be watching.
                                 ______
                                 
                         Comment of Donna Lomp
    Date Submitted: Friday, May 11, 2012, 11:45 a.m.
    City, State: Newton, MA
    Occupation: Investor/Philanthropist
    Comment: Please take out all assistance for GMO and pesticide-laden 
crops and big agribusiness. Please help the local organic biodynamic 
farms. Please let's get healthy organic food back on our table. GMOs, 
pesticides, herbicides, and chemical fertilizers are killing us. 
Monoculture crops, along with chemical agriculture are killing the bees 
and animals. Let's get back to nature and eat the way we are intended 
to eat. It IS NOT true that GMO/pesticide crops provide better yields, 
they don't! Organic crops do just as well and better! And truthfully, 
even if they didn't, what's the point of producing more food if it is 
causing cancer, allergies, infertility, and many diseases directly 
related to GMOs and farming chemicals? Both my parents died young from 
cancer. There is enough evidence that organic farming is better for 
people, animals, and the planet! Please help local organic farmers 
thrive! The only reason we pay more for organic food is because of big 
agribusiness farm subsidies (put in place by the original farm bill). 
Please at least make it a ``fair fight'' and stop supporting Monsanto/
Dow/Bayer and big agribusiness. Because when you help the big farms, 
you are helping the big chemical companies. And hurting people in the 
process! Please rethink everything in that bill and make organic/
biodynamic/sustainable farming (and the health of people and the 
planet) priority! Thank you.
                                 ______
                                 
                         Comment of David Long
    Date Submitted: Friday, May 18, 2012, 5:45 p.m.
    City, State: Jonesboro, AR
    Producer/Non-producer: Producer
    Type: Forestry
    Size: 50-150 acres
    Occupation: Private Lands Supervisor, Arkansas Game & Fish 
Commission
    Comment:

March 30, 2012

  To: Chairman, Agriculture Committee, U.S. House of Representatives
  Reference: 2012 Farm Bill Hearings

    Comments in support of continuing a strong Conservation Title in 
the 2012 Farm Bill:
    I am David Long, Private Lands Supervisor for the Arkansas Game and 
Fish Commission (AGFC) and also a landowner managing a tree farm here 
in Arkansas. AGFC has a staff ranging from 8 full time private lands 
biologists that work with hundreds of row-crop farmers and ranchers 
each year to assist them in improving their lands for fish and wildlife 
while recommending practices that also improves water quality, reduces 
erosion and helps reduce flooding. We work side by side with the 
Natural Resources Conservation Service and the Farm Service Agency and 
farm producers to promote farmland conservation through farm bill 
conservation programs.
    We am providing comments to lend support to continue funding and 
conservation programs in the 2012 Farm Bill that has been so successful 
here in Arkansas.
    The people of Arkansas are strong supporters of conservation in 
Arkansas and conservation is so important to our citizens they passed a 
\1/8\ of 1% conservation sales tax in 1996 to help ensure the future of 
fish and wildlife populations across Arkansas.
    The conservation programs in the farm bill are vital not only to 
the sustainability of production agriculture, but equally our fish and 
wildlife populations and their required habitats.
    Programs like the Wetland Reserve Program (WRP) and the 
Conservation Reserve Program (CRP) are incentive programs that have 
helped farmers stay on the farm by retiring unproductive, hard-to-farm 
croplands they lose money on most years. These programs help improve 
the farmer's financial health while providing tremendous environmental 
benefits to society. Bottom-line, these programs help keep farmers-
farming.
    USDA conservation programs here in Arkansas have and continue to 
provide significant benefits to fish and wildlife resources along with 
improving water quality where conservation practices are applied. 
However, without continued funding of these critical programs, 
sustainability of these resources will not be possible.
    We have much work ahead of us to implement conservation practices 
at a landscape scale to see significant improvements in our water 
quality and fish and wildlife resources across our farmlands in 
Arkansas. Cutting programs to deeply while we continue to battle water 
quality problems and declining habitats for farm wildlife could result 
in future regulatory requirements and the listing of more species on 
the Threatened and Endangered Species list, neither of which anybody 
desires because of all the problems these regulatory functions place on 
our farm producers. Conservation programs provide financial assistance 
to our farm producers to ensure we maintain productive, healthy lands 
and natural resources to include soil, water and wildlife for the 
present and future generations.
    We would like to provide specific comments on the conservation 
programs and their continued importance to farmers, ranchers, fish, 
wildlife and society as a whole and recommend this Committee support 
continued strong conservation opportunities in the 2012 Farm Bill.
Wetland Reserve Program (WRP)
    Arkansas farmers have enrolled over 200,000 acres in the program 
since its beginning. We have numerous field reports from our biologists 
and WRP farmer owners of increased populations of migratory birds, 
numerous resident birds along with a host of other wildlife species 
utilizing these WRP lands. In addition, increased populations of deer, 
turkey, quail, rabbits, all game species important to the economy and 
outdoor recreation in the delta, have been observed on WRP lands across 
the delta of Arkansas.
    WRP is another program that helps producers keep producing and 
staying on the farm.
    We encourage you to support continued WRP funding and the acreage 
caps sufficiently for states to continue their wetland restoration 
success story and provide this critical financial assistance to our 
farmers.
Conservation Reserve Program (CRP)
    Arkansas is not a big CRP state in terms of millions of acres 
enrolled under the General CRP sign-up as many other states have 
realized. However, our biggest benefits of the program in Arkansas are 
found under the Continuous CRP where conservation buffers, wetlands and 
bottomland hardwoods may be enrolled. As of January 2012, Arkansas row-
crop farmers and ranchers have enrolled 70,239 acres of buffers. These 
conservation buffers cover an estimated 5,853 miles of stream, rivers, 
and creeks across Arkansas. Arkansas has an estimated 90,000 miles of 
streams with approximately 36,000 miles (40%) degraded either with 
nutrients, sediments or both. Yea, this is very disheartening for the 
state called the ``Natural State''. How exciting it would be if we 
could buffer all of these degraded riparian edges that are contributing 
to our water quality problems using CRP. We could capture a significant 
percentage of the sediment and nutrient from run-off in Arkansas' 
waterways by using CRP buffers while paying producers rental and 
incentive payments along with cost-share assistance to install.
    The Continuous CRP has enrolled 44,103 acres of wetlands along with 
another 51,299 acres of bottomland hardwoods in Arkansas. These are 
mostly hard-to-farm, unproductive croplands that farmers enrolled that 
now are serving to improve water quality, increase flood water storage, 
and reduce sediments and nutrients from entering our waterways while 
improving farm producers financial bottom-line, assisting in keeping 
them on the farm.
    Maintaining the CRP with an adequate national acreage cap is 
critical to assisting states like Arkansas to continue to promote CRP 
buffers and wetland/bottomland hardwood restoration to achieve cleaner 
waters, higher fish populations, benefit migratory birds and reverse 
the number of declining species of wildlife on farms across the state.
Environmental Quality Incentive Program (EQIP)
    This cost-share program is providing significant conservation on 
working farmers across Arkansas. In 2011, over 161,000 acres of 
critical conservation practices were installed to: reduce erosion and 
pollution from nutrients, animal waste, and sedimentation; improve 
irrigation while reducing ground water use; improve forest health; 
improvements to grazing lands; and creating and improving wildlife 
habitat.
Wildlife Habitat Improvement Program (WHIP)
    This program places emphasis on declining species to include 
bobwhite quail, elk, neo-tropical migratory songbirds, and threatened 
and endangered wildlife species along with numerous other game and non-
game species.
    In 2011, WHIP funded conservation practices to benefit fish and 
wildlife covering more than 46,500 acres. Over the course of its 
existence, the WHIP has help create and improve habitat in Arkansas on 
over 500,000 acres.
    With talk of consolidating WHIP into EQIP, we are concerned WHIP 
funding will be lost in this larger program targeting primarily soil 
and water conservation practices and expect fish and wildlife practices 
will not compete with these resource concerns. Any consolidation of 
WHIP into EQIP should include language in the legislation emphasizing 
fish and wildlife habitat restoration in the EQIP and a minimum of 5% 
of EQIP funds be available for wildlife habitat restoration to ensure 
landowners continue to have financial assistance available to target 
habitat restoration on their lands.
Mississippi River Basin Initiative (MRBI)
    We recommend the ability of NRCS to continue to develop special 
initiatives such as the MRBI using farm bill conservation programs. We 
have significant waterways degraded with sediment and nutrients that 
need conservation practices installed. The MRBI provides funding for 
targeting the most degraded sub-watersheds first and practices are 
being implemented across the row-crop areas of the Mississippi delta in 
Arkansas to reduce this pollution.
    Arkansas is a significant contributor to the nutrient pollution 
(nitrogen and phosphorous) in the Lower Mississippi River Basin and the 
creation of the hypoxic zone (dead zone) in the Gulf of Mexico with the 
largest coverage ever recorded of 8,481 square miles reported in 2002. 
The MRBI funding is providing critical assistance to abate this 
pollution in the Arkansas portion of the watershed.
Closing
    With the increased frequency of flooding and droughts occurring 
across our state and the nation, farm producers will continue to 
experience cropland losses. As a result, conservation programs are more 
important today than ever. Farmers need options to take these revenue 
losing croplands out of production with compensation to remain a viable 
farming operation and continue to produce the food and fiber we require 
as a nation. Our policy should continue to be--farm the best, retire 
the rest. Programs like WRP and CRP have helped do that over and over 
and farmers are farming today because of these programs. Plus, these 
programs have resulted in huge fish, wildlife and environmental 
benefits to society. However, we have a ways to go to ensure soil, 
water and wildlife sustainability across the agricultural lands in 
Arkansas.
    Estimates are circulating that the world population will reach 9 
billion by the year 2050. The pressure on food production on U.S. farms 
to help feed this growing population will rise proportionally. However, 
you don't have to be a rocket scientist, not even a biologist, to know 
without substantial conservation funding in place to ensure the 
sustainability of our farm lands, maintain fishable streams and rivers, 
provide habitat for terrestrial wildlife and outdoor recreation, and 
plentiful drinking water, environmental problems can be expected to 
increase dramatically which ultimately will greatly impact our quality 
of life as we know it here in the natural state and across the nation. 
Are we going to strive to feed the world while destroying our very own 
natural resources and environment? Conservation funding has never been 
as important as it is today.
    Thanks for the opportunity to provide critical input this this 
vital component of the 2012 Farm Bill.

David Long,
Private Lands Supervisor,
Arkansas Game and Fish Commission,
Wildlife Management Division.
                                 ______
                                 
                         Comment of Dwight Long
    Date Submitted: Friday, May 18, 2012, 4:07 p.m.
    City, State: Klamath Falls, OR
    Occupation: Retired
    Comment: I work with several groups in Klamath Falls that are 
concerned about food security in Klamath County.
    The following should be included in the bill to increase food 
security:
    Community Food Projects Program--$10 million per year to help 
communities build food self-reliance.
    Farmers Market and Local Food Promotion Program--$20 million per 
year to develop farmers market capacity and create food hubs to connect 
farmers with schools, hospitals, grocery stores and other markets.
    Hunger-Free Community Incentive Grants--An average of $20 million 
per year for a new SNAP local fruit and vegetable incentive grant 
program at farmers markets and other healthy food retailers.
                                 ______
                                 
                         Comment of Gloria Long
    Date Submitted: Sunday, May 20, 2012, 12:20 a.m.
    City, State: Hartford, CT
    Occupation: Retired Teacher
    Comment: Please pass a strong farm bill which will enable food 
banks, food stamps, etc. to feed the hungry. This is a most basic human 
need (which is unconscionable to deny). Thank you.
                                 ______
                                 
                         Comment of Holly Long
    Date Submitted: Friday, May 18, 2012, 7:25 p.m.
    City, State: Menomonie, WI
    Occupation: Homemaker/Disabled
    Comment: It is not a difficult concept to realize we need a safe 
and healthy food supply. Keeping it safe also protects the environment. 
Subsidize small farmers or those who organically produce. Subsidize 
fruit and veggies. Stop the pollution and support of nasty factory 
farms which are cruel to the animals and the environment. God intended 
free range and clean specie appropriate sources of foods and water for 
the animals to be healthy and in turn provide healthy food for humans. 
Go back to the basics. Bigger is not always better. Mass produced food-
like items genetically modified are not healthy. When we take care of 
the Earth it will take care of us. Our programs need to be safe, clean 
and sustainable so there is a safe food supply for our grandchildren. 
Support Local.
                                 ______
                                 
                          Comment of John Long
    Date Submitted: Saturday, May 19, 2012, 7:32 p.m.
    City, State: Houston, TX
    Occupation: Laundry Owner
    Comment: Americans need more organically-grown, locally-produced 
food. Achieving this means eliminating, at all government levels, the 
rules and subsidies that favor large commercial farms. It also means 
investigating the practices of companies like Monsanto who are 
attempting to monopolize the production of seed. The Department of 
Agriculture has become a shill for corporate agribusiness, whose 
institutional objective seems to be to protect the profits of the large 
corporate players, even when doing so works against the health and 
long-term economic interest of the consuming public. Congress must 
recognize that the wholesome, nutritious food that Americans 
increasingly demand has far-reaching benefits for our society.
                                 ______
                                 
                        Comment of Valerie Long
    Date Submitted: Monday, April 02, 2012, 6:27 p.m.
    City, State: International Falls, MN
    Occupation: Economic Assistance Supervisor
    Comment: To decrease funding for economic assistance programs such 
as SNAP, WIC, etc., would increase the number of Minnesota families 
having to choose between eating or paying bills.
                                 ______
                                 
                        Comment of Toni Longley
    Date Submitted: Friday, May 18, 2012, 1:52 p.m.
    City, State: McKinleyville, CA
    Occupation: Environmental Agroecology
    Comment: I would like to see subsidies for conventional crops ended 
completely. No more flooding the market with corn, wheat, and soybeans 
that are genetically modified and bathed in synthetic chemical 
herbicides, pesticides, and fertilizers. Farms should be smaller and 
more diverse, growing many crops rather than one or two. The cheap 
commodity crops have created an obese and overweight society by 
encouraging fast eating and a complete disconnect from where, how, and 
by whom the food was produced. Organic and sustainable agriculture is 
what we should be encouraging. I propose a tax on unhealthy foods such 
as soda and fast food such as McDonalds, Taco Bell, Burger King, 
Wendy's, KFC, etc. If people aren't going to make the right decisions 
with their eating choices to lead to healthy living, then they ought to 
be swayed by tax incentives or disincentives. I would also like to see 
priority places on integrated pest management rather than chemical pest 
management. I'd like to see less mechanization and less factory 
production of our food. I want factory farms and CAFOs for animals to 
end completely, they are heinous and inhumane. I want to see GMO crops 
and foods labeled clearly in stores. I am not a proponent of GMO crops, 
it is just a way to maintain monocultures and continue using the 
chemicals. Also, the horror stories about GMOs spreading to organic 
fields and having those fields be contaminated and ruined are enough to 
make GMOs seem like a dangerous alternative. I don't believe anyone who 
says that GMO's are going to make it so that there are less starving 
people on Earth. From my understanding, enough food is produced every 
year to feed everyone on the planet. Probably enough food is wasted or 
thrown out to feed the starving. It is more a matter of equity, access, 
and distribution. By encouraging other countries to use agroecological 
farming methods, rather than dump cheap commodity corn and wheat on 
them and take their food sovereignty away in the name of aid, their 
people can grow their own food while benefitting the land that they 
live on, rather than degrading and polluting it with GMO crops, fossil 
fuel agriculture, and chemicals. People should do agriculture where 
there is water, not in deserts and places where water must be stolen 
from a river or watershed far away.
                                 ______
                                 
  Submitted Statement by Dr. Karl Longley, P.E., B.C.E.E., California 
          Water Institute, California State University, Fresno
    Congressman Costa, Congressman Cardoza Under Secretary Schubert, I 
thank you for inviting me to address you today. The agenda shows that I 
am associated with California State University, Fresno's California 
Water Institute. In the interest of full disclosure, I am also a member 
and current chair of the Central Valley Regional Water Quality Control 
Board.
    I will briefly describe some of the more significant water quality 
threats to Central Valley agricultural production and the health of 
Valley residents that require protective action and funding and other 
legislative support in the 2012 Farm Bill.
    The first water quality issue I will discuss is the salinity 
impacts that can be measured as yearly reduction of crop production and 
farmable land across an impacted region, lost jobs, higher utility 
rates, reduction of community growth potential, loss of habitat, 
premature corrosion of equipment, and other lost opportunities.
    Salinity issues are rarely considered newsworthy until the impacts 
have already occurred--it is like a cancer--slow to develop but often 
fatal when it does occur. A current example is Australia's Murray-
Darling Basin, an agricultural area larger than California where 
agricultural production was reduced by more than fifty percent by 
drought and horrific salinity impacts. A SWRCB report authored by Dr. 
Howitt of UC Davis confirmed that very significant salinity impacts are 
occurring in the Central Valley (2008). Similar studies have been 
performed in other parts of the state and all indicate that proactive 
salt management is economically beneficial.
    Salinity management includes source control, treatment (membrane or 
distillation technologies), collection and storage, real-time salinity 
management, salt recycling, and export. Significant continued funding 
is needed for the ongoing development of saline water treatment and 
Best Management Practices.
    The second water quality issue I will discuss is nitrate 
contamination of groundwater. A recent report by Dr. Thomas Harter of 
UC Davis provides the scientific study that documents the nitrate 
groundwater contamination problem with the major source of nitrate 
being irrigated agriculture and dairy manure. This groundwater nitrate 
contamination issue is the subject of a SWRCB workshop on May 23, 2012.
    Nitrate contamination of groundwater poses major problems including 
public health risks. It also can have an adverse impact on the 
production of certain crops such as grapes. Remediation of nitrate in 
groundwater is necessary for both the support of agriculture and safe 
drinking water supplies for many Central Valley communities, 
particularly disadvantaged communities. Besides treating nitrate 
contaminated groundwater, remediation also can be accomplished by using 
groundwater contaminated with nitrate for fertilization of crops 
applying it when the contaminated groundwater is used for irrigation.
    Dairy manure can be processed to produce bioenergy and a very good 
fertilizer that reportedly increases crop production substantially and 
is capable of meeting organic standards. Under one scenario over fifty 
percent of the optimized revenue potential from dairy manure can be 
from an enhanced fertilizer made from anaerobically digested manure 
with a substantial amount of the remaining revenue from bioenergy 
production.
    A Federal-State Dairy Digester program being led by some very 
knowledgeable and far-sighted individuals, including Ed Burton and 
Sandy Schubert here with us today, addresses the regulatory, technical, 
and economic issues of implementing the use of manure digesters on 
dairies. 2012 Farm Bill support is needed to be focused on bioenergy 
from dairy manure and the development of Best Management Practices for 
enhanced use of dairy manure for crops.
    The Central Valley Salinity Alternatives for Long Term 
Sustainability (CVSALTS) is a stakeholder focused on the development 
and adoption of a Central Valley Salinity Management Plan. 
Implementation of CVSALTS is essential for insuring the future 
availability of good water quality for both urban and agricultural use. 
The implementation of an effective Central Valley Salinity Management 
Plan will require research and significant funding. Nevertheless, 
salinity management produces revenue and economic sustainability. It is 
being done elsewhere but not on the scale needed in the Central Valley.
    The Irrigated Lands Regulatory Program was initiated nearly a 
decade ago addressing agricultural non-point source water quality 
impairments to surface waters. The revised Irrigated Lands Regulatory 
Program to be adopted soon will add measures for controlling 
contamination of groundwater by agricultural practices including 
contamination by salinity and nitrates.
    The Dairy Program, another Regional Board program, is a program 
similar to the Irrigated Lands Regulatory Program but tailored for the 
specific safe manure management needs necessary for dairies.
    The identification and development of effective Best Management 
Practices, including improvements to irrigation technology, is a 
critical element for protecting water quality and can benefit greatly 
from funding available from the 2012 Farm Bill. Monitoring of water 
quality also is an important element of all water quality protection 
efforts. While expensive these costs can be significantly lowered with 
research and development with funding available from the 2012 Farm 
Bill.
    This quick overview points out the necessity to protect Central 
Valley waters to protect health, support agricultural production, and 
to protect a number of other beneficial uses. The 2012 Farm Bill can 
provide critical funding and other legislative measures necessary to 
keep this Valley healthy and productive. These funding and legislative 
issues can be critical in the research necessary to develop best 
management practices and to better and more cost effectively irrigate 
the Valley's lands and monitor water quality.
    Sustainable agriculture in the Central Valley assisted by the 2012 
Farm Bill is able to locally provide healthy communities with safe 
drinking water for all residents, a life style treasured by many and, 
very importantly, a vigorous and sustainable Valley economy capable of 
continuing to supply the agricultural product needs for the United 
States and many elsewhere in this world.
    Thank you.
                                 ______
                                 
                         Comment of Adam Loomis
    Date Submitted: Friday, May 11, 2012, 4:38 p.m.
    City, State: Locke, NY
    Occupation: Student
    Comment: I believe the farm bill should be a tool for the positive 
change of the food system in our country. We need healthier and more 
sustainably produced food. With that in mind I think the food bill 
should:

  <bullet> Support new farmers, particularly organic farmers, so that 
        our rich farming heritage will safely be ushered into the 
        future.

  <bullet> Support innovation in areas that will help farmers grow our 
        food more sustainably and protect the environment.

  <bullet> Cut funding to corporate farms that don't produce the 
        healthy foods that we need more of. Instead fund farms that 
        grow fruits and vegetables to make those healthy foods easier 
        for us all to afford.
                                 ______
                                 
                        Comment of Jennifer Loos
    Date Submitted: Saturday, May 19, 2012, 12:50 a.m.
    City, State: Los Angeles, CA
    Occupation: Director of Operations, Marketing
    Comment: Stop subsidizing filler crops! Corn, soy, etc are in all 
processed food and are probably why we have a major obesity epidemic in 
our country. Why can't we focus on diversity in our crops and organic 
options? Heath over scale is what's important.
                                 ______
                                 
                         Comment of Loren Lopes
    Date Submitted: Sunday, May 20, 2012, 10:12 a.m.
    City, State: Turlock, CA
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 151-300 acres
    Comment: We need the cost of production factored into the pricing 
of raw milk in the United States. Most all other crops have fared well 
dairy has been hijacked by the global buying power of dairy food 
companies and it has to stop or the corporate investor dairies will 
take out the family dairy farm. Many of these dairy clusters are 
claiming to be family owned but in realty are investor owned with a 
individual spokes person. These dairy clusters have access to big money 
and make their profits from tax right off not milk production. However 
the majority is still in the hands of the independent family dairy 
operator so we need to protect this for the future generations. The S. 
1640 the Milk Marketing Improvement Act of 2012 is the prime example of 
achieving this.
                                 ______
                                 
                        Comment of Elleri Lopez
    Date Submitted: Friday, May 18, 2012, 2:58 p.m.
    City, State: Sparks, NV
    Occupation: WIC Staff
    Comment: I would like to know for myself and my family what I'm 
eating. All this genetic engineering is so bad and never been tested. 
We deserve to know where our foods coming from. Organic food is real 
food!
                                 ______
                                 
                         Comment of Laura Lopez
    Date Submitted: Friday, May 18, 2012, 10:30 a.m.
    City, State: Mt. Sinai, NY
    Occupation: Information Technology
    Comment: Protecting farmland against urban sprawl is very important 
in protecting our farmland which is dwindling. I my home town, there 
were beautiful farms everywhere, not they are all condominiums and the 
traffic is out of control, it ruined our town.
    Factory farmers must be held accountable for their actions in 
polluting our waters and for providing torture chambers for farm 
animals. We must grow up as a race and begin to be more compassionate 
about how our farm animals are raised and slaughtered. Let's get real.
                                 ______
                                 
                        Comment of Stacia Lopez
    Date Submitted: Saturday, April 28, 2012, 6:28 p.m.
    City, State: Gilbert, AZ
    Occupation: Homemaker
    Comment: My name is Stacia Lopez. I am a resident of Gilbert 
Arizona. I am writing as a mother and a concerned citizen. My main 
concerns are providing healthy nutritious food to my family and our 
communities. I am also a supporter of Feeding America and my local food 
bank. This next farm bill should make feeding vulnerable children, 
seniors, and low-income families a priority. I also believe we need to 
concentrate on more local sustainable farms to provide nutritious 
fruits and vegetables to our communities.
    After reading testimonies given to your committee, I have concerns 
regarding the feed and livestock industries. Their representatives keep 
quoting the predicted increasing world population of 30% by 2050 and 
the corresponding demand for more food. A large portion of the crops 
grown, however, are for non-consumable goods. They support feed 
products for meat production but also corn products for processed food, 
and other corn byproducts and biofuels. While the latter is a noble 
endeavor, if it is taking the majority of our farming lands I say we 
look elsewhere for fuel. I do not believe this is our best option just 
the most convenient for now, but it is not worth the effect on food 
production.
    As I understand it, in the 2008 Farm Bill a whopping 60% of EQIP 
funds were guaranteed to the livestock industry. I am not against 
eating meat. I personally eat beef, pork and chicken. I am also aware, 
as the vast majority of Americans are, that we as a nation have a 
nutritionally poor diet and obesity and diabetes are becoming the norm. 
The feed and livestock representatives also brag of their increase in 
exports of meats over the past 15 years. I see this as just spreading 
our ``wealthy'', unhealthy diet. At the same time as guaranteeing 60% 
of funds to livestock the previous bill has put a cap of $20k on 
organic farms. I do not believe that the USDA recommends a diet 
consisting of 60% meat products.
    I also read of their complaints that the CSP has not kept up with 
``their'' new technologies and should release more of the conservation 
land. (To them I presume.) I am not sure I am exactly thrilled with 
their new technologies or the pesticide company's control of the 
industry. This however is too big of an issue to address fully here.
    I discovered during my reading that the majority of the areas of 
conservation that these cooperatives are using to qualify for funds are 
vastly directed towards preventing their waste and their large amounts 
of chemicals from reaching our waterways. The top of the list should be 
to maintain healthy lands not protecting the healthy from the 
contaminated.
    As to the ideas that I support I will refer you to testimonies from 
Mr. Carl Homan, Homan Family Dairy Farms, on behalf of National 
Sustainable Agriculture Coalition, Centre Hall, Pennsylvania and Mr. 
David Bell, Executive Director, Wild Blueberry Commission of Maine, on 
behalf of Specialty Crop Farm Bill Alliance, Orono, Maine.
    In conclusion, I believe our entire food chain is in crisis. Our 
land is corrupted, our food is poisoned, and here in America people are 
starving. I believe we need to look at more natural healthy ways of 
producing food. We can look for working models such as Carl Homans' 
dairy farm and find ways to increase production. We need to promote 
real conservation activities and more organic farms. We cannot just 
look at output but rather long term outcomes.
            Thank you for your time,

Stacia Lopez.
                                 ______
                                 
                        Comment of Thomas Lopez
    Date Submitted: Friday, May 18, 2012, 7:52 p.m.
    City, State: Northville, MI
    Occupation: Social Worker
    Comment: I want a farm bill that favors local farmers, NOT 
corporations! I want transparency and fairness to be expected of all 
farmers and their farming practices. And I believe small producers 
deserve more protection under the law that huge corporations, who 
honestly monopolize the market. Also, end the subsidies for certain 
crops (i.e., corn and soybeans)! The Monsantos didn't need the 
assistance and they push the smaller farmer out of the market. I 
appreciate your listening to my input.
                                 ______
                                 
                       Comment of April L'Orange
    Date Submitted: Friday, May 18, 2012, 3:26 p.m.
    City, State: Binghamton, NY
    Occupation: Unemployed
    Comment: We support our local farmers and ranchers and would 
appreciate it if the U.S. government did the same. Studies show that 
there is no gain in efficiency when farming and ranching operations 
grow above a certain size, and we are currently seeing exactly what 
kind of ill effects (Roundup resistant weeds, a move back toward the 
components of Agent Orange) we can expect from haphazardly trying to 
genetically modify crops to avoid extra labor, rather than buying seed 
that doesn't include any intellectual property fee and putting the 
money back into jobs that make those modifications unnecessary. The way 
we eat is making a whole lot of us sick, and it stems from the way we 
grow food in a country dedicated to rooting out any alternatives. It's 
time to stop subsidizing agribusiness and put our backing into small 
and midsized farming and ranching operations, where it belongs.
                                 ______
                                 
                          Comment of Wen Loren
    Date Submitted: Friday, May 18, 2012, 7:10 p.m.
    City, State: Eugene, OR
    Occupation: Instructor and Licensed Massage Therapist
    Comment: I fully support all provisions of the Local Foods, Farms 
and Jobs Act (H.R. 3286). This will be a start in adopting best 
agricultural practices for the health of citizens, the land and the 
livelihood of farmers and farm workers.
    By fully funding conservation programs, such as the Conservation 
Stewardship Program, we make sure that enrollment in new insurance 
subsidies are tied directly to compliance with conservation programs & 
our farmland will be protected.
    The implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236) will assist in long term goals for 
Food, Farms and Jobs. Maintaining the EQIP Organic Initiative is 
necessary for health and well-being of us all.
                                 ______
                                 
                        Comment of Lloyd Loring
    Date Submitted: Friday, May 18, 2012, 12:42 p.m.
    City, State: South Bend, IN
    Occupation: Retired
    Comment: Agribusiness methods are changing the value of foods they 
offer. Farmers who reject the brute force methods now urged by chemical 
firms to control weeds and pests are being victimized by rules that 
deny them the opportunity to create healthful and nutritious food. I 
need better food on my table, not bigger profits for a handful of 
investors.
                                 ______
                                 
                          Comment of Joe Lorio
    Date Submitted: Friday, May 18, 2012, 2:59 p.m.
    City, State: Ossining, NY
    Occupation: Journalist
    Comment: Stop subsidizing corporate farms. Stop subsidizing 
commodity crops like corn. Corporate agriculture is poisoning the 
American food supply, creating obesity, and driving health-care costs 
through the roof. It's time to stand up to these entrenched interests 
and tilt the scales in favor of smaller, organic, sustainable 
producers.
                                 ______
                                 
                       Comment of Sabrina Louise
    Date Submitted: Saturday, May 19, 2012, 6:59 p.m.
    City, State: Portland, OR
    Occupation: Whole Foods Consultant
    Comment: It is incredibly important to realize the magnitude of the 
farm bill as it relates to the permanency of our choices. We need to do 
whatever we can to preserve our right to seed heritage and food 
security, nutritionally and organically. This means less GMO's and more 
plant diversity . . . This also means more food going to feed humans 
than livestock, because meat and dairy long term is not going to be 
sustainable for 9 billion on one planet. Please rethink your decisions 
and take into account future generations. If we do not halt the 
planting and spraying of poisons, we risk global bee collapse, resource 
depletion, and potentially the end of all food systems, and thus, 
civilization.
                                 ______
                                 
                        Comment of Kathryn Love
    Date Submitted: Friday, May 18, 2012, 4:19 p.m.
    City, State: Columbia, MO
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Livestock, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: Agricultural subsidies for corn have led to the country's 
obesity epidemic. It is time to subsidize Healthy food, not the crops 
that have the most clout in Congress due to their lobbyists' influence. 
Please keep soil and water conservation and the health of U.S. citizens 
your foremost concerns when drafting the new farm bill.
            Sincerely,

Kathryn Love.
                                 ______
                                 
                     Comment of Arlene Love Lippman
    Date Submitted: Friday, May 18, 2012, 1:26 p.m.
    City, State: Philadelphia, PA
    Occupation: Artist/Photographer
    Comment: We are like the growing number of people who have stopped 
buying meat and poultry in supermarkets. Food safety is below par. 
Turning it over to private companies will only increase the climate for 
corruption.
                                 ______
                                 
                       Comment of George Loveday
    Date Submitted: Saturday, May 12, 2012, 1:33 p.m.
    City, State: Grass Valley, CA
    Occupation: Teacher
    Comment: We are under control by the monopolistic farm industry, 
and they are poisoning America. How excited can one get about products 
full of pesticides, corn, antibiotics, growth hormones, untested 
chemicals, GMO, and products full of fat, salt, and sugar that can stay 
on the shelf for 20 years? The bees are dying, super weeds are now 
spreading everywhere, poisons are allowed to travel downstream into 
water supply of communities, and we have a dead zone in the gulf that 
continues to grow.
    Yet, you do nothing. You kick the can farther down the road rather 
than stand up and be responsible.
    The change is simple if you are willing to take a swallow of 
integrity and courage. Money for organic farming only, and stop giving 
money away to the corn industry.
    More cancers, birth defects, diseases, allergies, hormone 
imbalances, infertility, and on and on and on.
                                 ______
                                 
                       Comment of Sheila Low-Beer
    Date Submitted: Friday, May 18, 2012, 9:59 p.m.
    City, State: Charleston, SC
    Occupation: Retired
    Comment: Our health and the planet do not benefit from subsidies to 
industrial agriculture! We desperately need a food system based on 
local and organic food! Please Think, and do the right thing. Please!
                                 ______
                                 
                        Comment of Stephan Lower
    Date Submitted: Thursday, May 10, 2012, 2:21 p.m.
    City, State: Reno, NV
    Occupation: Retired
    Comment: Our community has been hit especially hard by the 
recession. Providing enough healthy food for our neighbors is an 
enormous effort. Cutting Federal assistance, such as SNAP, simply means 
somebody is going to go hungry. That somebody is most likely to be 
children or seniors. You have duty, as do we, to be sure Americans have 
enough to eat.
                                 ______
                                 
                       Comment of Rebecca Lowery
    Date Submitted: Friday, May 18, 2012, 3:06 p.m.
    City, State: Eldersburg, MD
    Occupation: Educator
    Comment: As a consumer of pure, sustainably-produced, organic 
foods, I am tired of Big Agriculture lobbies ruling the food production 
in this country. My children have health conditions that require them 
to eat only pesticide- and GMO-free foods. We rely on several small 
local farmers to provide us with the nourishment we need. Big 
Agriculture lobbies are trying to put my farmers out of business and 
leave us with only toxic food. It is time that you honor the will of 
the people and not those seeking to profit from the destruction of 
sustainable, nutrient-rich food choices. Thank you for your 
consideration of this very important issue.
                                 ______
                                 
                       Comments of Sanna Lowrance
    Date Submitted: Friday, April 27, 2012 6:05 p.m.
    City, State: Hattiesburg, MS
    Comment: I'd like to see more support for small farmers, some 
effort to end the massive environmental contamination of genetically 
modified crops that are devastating the nation and threatening the 
health of all those who consume them. I'd also like to see mandatory 
labeling of all genetically modified produce, meat, and processed foods 
. . . until then, I will not buy anything that I cannot source as 
local. It's simply too dangerous.
    I'd also like to see some controls on the massive use of 
fertilizers, weed killers and pesticides that are producing super 
weeds, poisoning our air, water and the foods we eat, and quite 
possibly killing off the bees we need to continue to produce food at 
all.
    Date Submitted: Wednesday, May 09, 2012, 3:28 p.m.
    Comment: Provide more support to family farmers, to organic 
producers, and begin to phase out the GMO debacle that is ruining our 
health, our food supply and our faith in American food products. By 
requiring ever more pesticides--and more dangerous ones as well--
genetically engineered crops are threatening our very survival by 
poisoning the environment, creating adverse health impacts from 
ingesting these pesticides, and promoting the growth of superweeds, 
which threaten all agricultural producing.
    Date Submitted: Friday, May 18, 2012, 4:00 p.m.
    Comment: I would like shopping to be easy again. I want to be able 
to trust the foods on the grocer's shelves. Instead, I have been forced 
to abandon any and all meat products, processed foods, most cooking 
oils and shortenings, dairy products, fresh, frozen and canned 
vegetables in order to avoid genetically engineered foods and 
ingredients that our ruining our health and our environment. It's time 
to return to common sense agriculture and to healthy, life giving 
foods.

          ``The USDA surveyed 43 foods and compared their nutritional 
        content in 1999 to original testing that took place in 1950. 
        Half of the nutrients measured declined by 6 to 38%.''--The 
        Cornucopia Institute
          ``Micronutrients such as iron, manganese and zinc can be 
        reduced by as much as 80-90 percent in GE plants!''--Stingray

    For a healthy America, our citizens must has healthy foods. To have 
access to healthy foods, producers must produce healthy foods, and food 
labeling must enable consumers to make the healthy choices when they 
shop.
                                 ______
                                 
                         Comment of Emma Lowrey
    Date Submitted: Saturday, May 19, 2012, 5:06 a.m.
    City, State: Hilo, HI
    Occupation: Curves Employee, Freelance Writer and Proofreader
    Comment: Food policy is one of the most important political issues, 
though many people do not realize government substantially shapes our 
food economy. As you consider our next farm bill, I urge you to:
    End subsidies (aka direct payments and countercyclical commodity 
programs)! Current subsidies favor crops such as corn and soybeans that 
end up as highly processed food products largely devoid of fiber and 
nutrients. Research is showing that consumption of processed grains 
leads to an increased risk for obesity. If anything, our taxpayer 
dollars should be going towards helping local farmers who provide fresh 
food farmed in a sustainable manner.
    I sincerely hope you take my points into consideration. I am only 
one of many citizens who share this view.
    Thank you for your time.
                                 ______
                                 
                          Comment of Lyn Lowry
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Takoma Park, MD
    Occupation: Editor
    Comment: We need real reform of our farm policies, from food safety 
and inspection to humane treatment and living conditions of animals. 
The situation regarding both these issues is abysmal and alarming. We 
can and should do better as a nation, and you should do far better as 
our Representatives.
                                 ______
                                 
                         Comment of Sarah Lowry
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Deerfield, OH
    Occupation: Teacher
    Comment: The industrial agriculture system is one that is ruining 
the health of U.S. citizens and the environment we all live in. We need 
to make sweeping changes in order to live better lives in the future. 
Please reform farm policy; if not for your own health, than for your 
children's.
                                 ______
                                 
                       Comment of Carol Lubetkin
    Date Submitted: Friday, May 18, 2012, 4:23 p.m.
    City, State: Moore Haven, FL
    Occupation: Retired Teacher
    Comment: We must have an organic farm bill--accurate labeling and 
info for the public consumer. It is of grave importance to our health 
and the health of our planet Earth. Thank you very much.
                                 ______
                                 
                         Comment of Jill Lubin
    Date Submitted: Thursday, May 17, 2012, 1:19 p.m.
    City, State: Spotswood, NJ
    Occupation: Chemist
    Comment: Organic agriculture should be highly funded above all 
other agriculture. It is the only way the future of our land and 
agriculture will succeed. Genetically modified crops are rendering 
America's soil infertile and is not doing what it promised it would do.
                                 ______
                                 
                        Comment of Michael Luca
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Shrewsbury, NJ
    Occupation: Computer Consultant
    Comment: I am concerned about what is going on in the food 
industry. We have lost our way and I am horrified at the level of 
influence the current Agribusiness has over our elected officials. I 
did not vote for Monsanto et al., and this needs to change.
                                 ______
                                 
                       Comment of Krista Lucchesi
    Date Submitted: Wednesday, May 09, 2012, 3:59 p.m.
    City, State: Oakland, CA
    Occupation: Director of Nonprofit
    Comment: Please consider those with no other resources to get food 
when you consider cuts to programs like the commodities program or 
SNAP. These folks have no other options for food and programs like mine 
cannot keep up with the need. We need your help. Please do not cut 
these programs.
                                 ______
                                 
                        Comment of Barbara Luce
    Date Submitted: Friday, May 18, 2012, 12:37 p.m.
    City, State: Clinton, ME
    Occupation: CS
    Comment: I think that local food and small farms are a better value 
than large agribusiness. Food should be labeled so the consumer can 
make informed decisions.
                                 ______
                                 
                       Comment of Ursula Luckert
    Date Submitted: Tuesday, May 15, 2012, 6:41 p.m.
    City, State: Portland, OR
    Occupation: Accounting/Operations Executive
    Comment: The SNAP and TEFAP programs are critical to our nation's 
mission that no one in our country should be hungry. These are 
effective programs with high efficiency and returns and such be 
supported by our legislature.
                                 ______
                                 
                        Comment of Nancy Lueders
    Date Submitted: Friday, May 18, 2012, 3:42 p.m.
    City, State: Covington, GA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Family gardens are great for harmonizing with each other, 
the Earth and God. We were meant to eat real food, not food containing 
chemicals. The GMO, chemicals, and techniques for raising gardens, 
livestock and human children are poison for all humans, gardens and 
livestock. We are destroying our home, Mother Earth, with all of these 
poisons. It is on your conscience how you vote, not mine, so good luck 
and do the right thing.
                                 ______
                                 
                     Comment of Dr. Catherine Luib
    Date Submitted: Sunday, May 20, 2012, 4:52 p.m.
    City, State: Moreno Valley, CA
    Occupation: Chiropractor, Acupuncturist, Clinical Hypnotherapist
    Comment: We deserve a right to know what is in our food and if they 
are GMOs! GMO are horrible and detrimental, affecting and changing 
human DNA! We need to know about our food sources and have better 
quality of it. Protect organic farm lands and treat organic farmers 
better! Monsanto needs to go down, stop any support for this terrible 
money hungry company!
                                 ______
                                 
                       Comment of Caroline Luley
    Date Submitted: Sunday, May 13, 2012, 10:48 a.m.
    City, State: Cape Canaveral, FL
    Occupation: Retail Sales
    Comment: Please see that the farm bill is strong and protects our 
food supply. We need an end to farm subsidies with a strong labeling 
process. We need to support locally grown organic foods. We need to 
protect programs like SNAP, TEFAP, and CSFP so that poor children don't 
go hungry. Oversight and strong regulations on disease and farm animal 
treatment. All of these things needs to be considered and included in 
this bill. Our farm industry predicts the health and well being of all 
Americans.
                                 ______
                                 
                        Comment of Neil Lumbard
    Date Submitted: Monday, March 19, 2012, 6:20 p.m.
    City, State: Waco, TX
    Occupation: Student
    Comment: Please consider the importance of nutrition programs and 
do not consider cutting funds helping these necessary health-related 
and hunger-related issues.
    It would significantly affect our country, it's people, and not in 
a good or positive way. We must remember to help those in need. Hunger 
is never an acceptable option to even consider so far as possible 
budget cuts.
    Please support all Hunger related bills to help the struggling and 
under-served members of our population. It helps everyone. It is the 
best and only option.
                                 ______
                                 
                        Comment of Kirk Lumpkin
    Date Submitted: Sunday, May 20, 2012, 2:00 p.m.
    City, State: El Cerrito, CA
    Occupation: Farmers' Market Special Event Coordinator
    Comment: Historically most of the money in the farm bill has gone 
to conventionally produced commodity crops, but these are the things 
that now need the least support. We need to support small organic 
farms--they represent the healthy future that will benefit the most 
people. We need to facilitate access to healthy food by increasing 
support for EBT (Food Stamps).
                                 ______
                                 
                        Comment of Rhonda Lundin
    Date Submitted: Tuesday, April 24, 2012, 1:18 p.m.
    City, State: Reno, NV
    Occupation: Public Relations
    Comment: Mr. Amodei:

    The cuts that the House Agriculture Committee has recommended 
making to the SNAP program would be absolutely disastrous to Northern 
Nevada. Need at the Food Bank of Northern Nevada has doubled in the 
last year and a half and more than one in four children in Nevada is 
food insecure. Losing access to SNAP benefits would be devastating to 
these families, and the Food Bank and other charities would never be 
able to fill the need created by these cuts.
    I know cuts must be made, but please reconsider such dramatic cuts 
to SNAP. We are still dealing with double-digit unemployment in Nevada, 
and this kind of move would exacerbate the struggles that our state and 
communities are going through.
            Sincerely,

Rhonda Lundin,
[Redacted],
Reno, NV.
                                 ______
                                 
                      Comment of Kathleen L. Lundy
    Date Submitted: Friday, May 18, 2012, 4:20 p.m.
    City, State: Salt Lake City, UT
    Occupation: Self-Employed
    Comment: There is much wrong with the proposed farm bill--it is 
doing nothing to help the long range development of farming as a way of 
life; healthy farming; and small local farms. It seems to promote more 
industrialization of farms . . . this practice leads to unhealthy for 
people crops . . . this bill undermines the very things that would help 
our people . . . help us be healthy and more secure. More later . . .
                                 ______
                                 
                      Comment of Patrick Lunemann
    Date Submitted: Sunday, May 20, 2012, 10:56 p.m.
    City, State: Clarissa, MN
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 500-999 acres
    Comment: As the President of the Minnesota Milk Producers 
Association (MMPA) and as a constituent of Congressman Peterson, I 
thought I should provide feedback regarding the dairy provisions of the 
proposed farm bill. MMPA's Board of Directors has voted to oppose the 
dairy provisions contained in the draft 2012 Farm Bill. MMPA, which 
represents Minnesota dairy farmers, believes the bill does not 
adequately address the challenges facing Minnesota's dairy farmers.
    We ask that the language referring to ``Milk Stabilization'' be 
decoupled from the Dairy Producer Margin Protection Program. Or, 
another option would be to keep the existing language and then make 
Livestock Gross Margin--Dairy (LGM-Dairy) a permanent program and 
provide some additional funding. Therefore, producers could still 
choose to have a Federal supported safety net without being forced into 
a supply management program. They could choose LGM-Dairy or the Dairy 
Producer Margin Protection Program that includes Milk Stabilization.
    MMPA's first priority is the long-term success of Minnesota dairy 
farmers. One major component of achieving this priority is to ensure 
that our dairy farmers have a solid infrastructure. Analysis of the 
current Senate language would force Minnesota dairy farmers to cut up 
to 6% of milk production--Today.
    Certain regions are currently producing milk in excess of their 
processing capacity. Here in Minnesota, we are dangerously close to 
losing some of our processing plants due to lack of locally produced 
milk. A cut in other regions would just balance their supply to plant 
capacity. Here, with a production cut, our Minnesota dairy farmers 
could lose infrastructure, leading to further decline in an industry 
that adds over 40,000 jobs and over $11.6 billion of economic impact to 
Minnesota alone.
    Dairy farmers also deserve promised market reform. The United 
States dairy industry must move toward a two class pricing system and 
it must move toward a competitive pay price.
    I also ask to please include California under the Federal Milk 
Market Order system. And, we should increase our solids non-fat 
standards up to the same level as California.
    Thank you for the opportunity to share our feedback on the proposed 
dairy provisions of the current draft of the farm bill.

Patrick Lunemann,
President, Minnesota Milk Producers,
Clarissa, MN.
                                 ______
                                 
                         Comment of James Lung
    Date Submitted: Friday, May 18, 2012 2:20 p.m.
    City, State: Portland, OR
    Occupation: Graphic Designer and Avid Gardener/Food Grower
    Comment: I am writing to voice my support for the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    We need to build resilience in our food system by supporting 
policies other than large mechanized big agribusiness. Our soils are 
getting salted by fertilizers and poisoned by pesticides. Our 
infrastructure is entirely based on a fossil fuel paradigm as we enter 
the 6th year of peak oil according to the International Energy Agency. 
Wes Jackson is an example of someone pioneering a more sustainable 
system that is resilient: he uses a perennial polyculture to withstand 
drought and hail without using pesticides and fertilizers. Please look 
at the risks of agribusinesses that are analogously `too big to fail' 
and know that our food and soils are more precious than money. True 
wealth is a healthy, productive land and we have farm lands that are 
desert equivalents that insects can't live on. We are making it so that 
even plants can't live on the land unless we bioengineer them to resist 
the poison we apply. We are at risk--make no mistake.
                                 ______
                                 
                      Comment of Christopher Lunn
    Date Submitted: Friday, May 18, 2012, 3:25 p.m.
    City, State: Genoa, NV
    Occupation: Technology Executive
    Comment: As you gentlemen and gentlewomen take care of and seek the 
best for your families, so should our laws seek to nurture what is best 
for the Earth that sustains humanity.
    It is an obvious point of logic that replenishing Earth's soil with 
just 3 basic chemicals and then relying upon herbicides, pesticides and 
fungicides defies basic human and soil health needs.
    Soil becomes too `hot' for natural microbe and enzyme activity to 
thrive. Those nutrient releasers die and the cycle of replenishing with 
artificial chemicals takes over.
    Organic farming research and implementation MUST be sustained and 
enhanced for the well being of present and future generations.
    I urge you to Please look beyond the presentations of vested, 
corporate agriculture presents you.
    GMO's Be Gone!
                                 ______
                                 
                        Comment of Joanne Luongo
    Date Submitted: Friday, May 18, 2012, 10:27 a.m.
    City, State: Kettle Falls, WA
    Occupation: Home Gardener/Writer
    Comment: It is imperative that the small farm receive every 
consideration that industrial farming is offered. What is meant by 
``every consideration'' is fairness, respect & economic advantages that 
large industrial farms are given.
                                 ______
                                 
                        Comment of Grant Lupher
    Date Submitted: Friday, May 18, 2012, 7:09 p.m.
    City, State: Los Angeles, CA
    Occupation: Unemployed
    Comment: I believe that given the growing problem with hunger in 
this country, due to a still uncertain economy, that our Congress needs 
to put strong support behind farm aid bills.
                                 ______
                                 
                         Comment of Mayra Luria
    Date Submitted: Thursday, May 10, 2012, 3:08 p.m.
    City, State: Ft. Lauderdale, FL
    Occupation: Herbalist
    Comment: We have lived the failure of corporate farms and it is 
time to help the individual small farmer again. Monsanto is not a 
farmer it is a corporation with Nazi ideals of ruling the world through 
food control. We need to encourage and support organic and non GMO food 
sources. The U.S. with all its knowledge is falling and failing the 
People in its agricultural policies.
                                 ______
                                 
                       Comment of Deborah Luscomb
    Date Submitted: Saturday, May 19, 2012, 1:24 p.m.
    City, State: Boulder, CO
    Occupation: Seamstress, Gardener, Nutrition Coach, Food Activist
    Comment: In the name of sanity, compassion and health, it is time 
to discontinue subsidies to industries that are destroying the planet, 
like big agriculture, and increase subsidies to small, community, 
organic farmers. Let's put people and the planet before profit for a 
change. It's high time.
                                 ______
                                 
                        Comment of Marc Lussier
    Date Submitted: Friday, May 18, 2012, 11:28 a.m.
    City, State: Florence, MA
    Occupation: Restaurant Server/Milk Courier/Father
    Comment: The support of smaller community based, family oriented 
farms is a key piece of our democracy. Our country was based on such 
things, and the ``American Spirit'' evolved from the independence 
created by small farms. The world changes, but a return to the past 
allows for a model that maintains an individual's ability to work and 
see the results of the work. It moves us away from the large amounts of 
petroleum that now pervade our food sources in the form of fertilizers, 
and the need for petrol to ship products thousands of miles. Please 
take any GMO supporting provisions out--they are a dark path fraught 
with peril.
                                 ______
                                 
                         Comment of Essie Lutes
    Date Submitted: Friday, May 18, 2012, 1:48 p.m.
    City, State: Indianapolis, IN
    Occupation: Retired
    Comment: Honorable Carson,

    We need to stop funding for large industrial farmers and support 
our local as well as organic family farms. This is the heart land of 
America . . .
            Regards,

Essie Lutes.
                                 ______
                                 
                         Comment of Harry Luton
    Date Submitted: Saturday, May 19, 2012, 4:01 p.m.
    City, State: Bloomington, IN
    Occupation: Biologist, Indiana University
    Comment: As a biologist and someone literate in the science of our 
times as well as in world issues, I must stand up strongly for a farm 
bill that would encourage small-scale, organic farming rather than 
large-scale commodity farming. ``Factory farms'' rely heavily on 
synthetic fertilizers and pesticides, with a huge cost to our 
environment. In my hometown in Louisiana, the agricultural runoff 
coming down the Mississippi has numerous ill effects on the wildlife in 
the wetlands and coast, and also hurts our fishing industry. Similar 
issues occur all over the country, and ultimately the American people 
will suffer the cost of faltering ecosystems.
    I also want to point out the unhealthy food systems that are tied 
to large monoculture operations. At a time when the rate of diabetes is 
steadily increasing, our stores are flooded with high fructose corn-
syrup and refined wheat products rather than local greens.
    The farms that should be subsidized are not those who are willing 
to stress our environment and our health in order to ensure their crops 
success and turn a dollar. Rather, I want my tax dollars going to those 
who are willing to take risks using natural growing techniques. For me 
this is a moral issue, as well as a common-sense issue. Those taking 
the big risks involved in small operations are the ones who really need 
the money.
    For all of the reasons above, and many more I recommend a farm bill 
with the following features:

  <bullet> Full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Laura Luttrell
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Milwaukee, WI
    Occupation: Student--Future Farmer
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I currently work with a nonprofit organization that daily 
encounters hundreds of individuals that are utilizing the SNAP program 
and vitally need it. How will they meet their basic needs without at 
least the same support?
    I also plan to have a small organic farm in the future, but some of 
the suggestions on the table make me second guess whether you will make 
it too hard for me to do that.
    I believe the only way forward for our country is to reduce the 
size of farms and increase the variety. Please help me to be able to be 
part of this.
                                 ______
                                 
                        Comment of Patricia Lux
    Date Submitted: Sunday, May 13, 2012, 9:23 a.m.
    City, State: Oak Park, IL
    Occupation: Self-Employed
    Comment: Even families who receive food stamps sometimes need to 
come to our food pantry. Cutting SNAP will mean even less food for 
people already in poverty. Please don't cut SNAP.
                                 ______
                                 
                    Comment of Lynnea Lux-Kosiewicz
    Date Submitted: Friday, May 18, 2012, 10:55 p.m.
    City, State: Portland, OR
    Occupation: Illuminated Calligrapher
    Comment: We need real reform that supports a healthy, long term, 
bodiverse crop rotation that emphasizes organics and sustainable 
farming practices. Big ag fulfills none of these necessary 
requirements.
                                 ______
                                 
                        Comment of Aimee Luzwick
    Date Submitted: Tuesday, May 08, 2012, 5:09 p.m.
    City, State: Griffith, IN
    Occupation: Database Analyst
    Comment: I recently read that the committee has approved cutting 
the Food Stamp Program that I believe is now called SNAP. I am 
personally appalled by this decision and I hoping what I read was 
wrong. I can honestly say that my family has been truly blessed during 
what I call a depression. However, the number of people that are 
struggling are far greater than any political poll can even gage. I 
have never seen so many people desperate for food on street corners, 
parking lots, and even children heading for school. My family has been 
trying to help as many families as much as possible through these 
horrible times. I cannot believe you now want to take food from these 
people when they've already lost everything. Does Anyone On The 
Committee Know What It's Like Out Here In The Real World? I ask that 
you pass a farm bill that protects and strengthens programs like SNAP, 
TEFAP, and CSFP. Too many people in my town will suffer greatly if you 
cut these programs.
                                 ______
                                 
                        Comment of Deborah Lyle
    Date Submitted: Sunday, May 20, 2012, 2:07 p.m.
    City, State: Edgewater, MD
    Occupation: Housewife
    Comment: I am offended by the idea you want to further Monsanto and 
their unsafe gardening practices and round-up in the seed corn. The 
unsafe practices of these so called organized big businesses are what 
is killing our country. Killing the bees that pollinate our crops and 
wondering what has happened? We need safe practices in organic small 
farms to keep us eating healthy foods. Don't cave to big business and 
support our local farms instead. Thank you.
                                 ______
                                 
                         Comment of David Lynch
    Date Submitted: Friday, May 18, 2012, 2:01 p.m.
    City, State: Lexington, KY
    Occupation: Homemaker
    Comment: Our country is turning into McDonalds, it is shameful that 
we give school children Roundup pesticide chips, but can't give them 
organic apples. If you want the USA to die continue supporting the 
McDonaldization of America. We need to double organic funding and 
farming, stop subsidizing Monsanto.
                                 ______
                                 
                         Comment of Jill Lynch
    Date Submitted: Friday, May 18, 2012, 11:59 p.m.
    City, State: Viroqua, WI
    Occupation: Clinical Mental Health Counselor
    Comment: Dear House Committee on Agriculture,

    We really do need to wake up . . . we've needed to for a very long 
time, but we can No Longer continue on this path of unsustainable 
agriculture which contributes to unsustainable health & well-being, at 
home and around the world.
    I grew up on an Iowa farm and know corn and soybeans, and worked in 
the fields. I loved being on the family farm. However, ``factory 
farming'' has taken over, aided by the agenda of agribusiness (which 
should not be synonymous with agriculture and farming) and the way we, 
the government, have subsidized corn for decades.
    Also, I became sick from the commonplace and casual use of 
herbicides and pesticides. There is a problem here, and we need to stop 
dismissing or downplaying the problem. It is not going to go away 
through ignorance or dismissal of the problems.
    My undergraduate degree is in home economics and I taught high 
school level in Iowa before teaching as a Peace Corps Volunteer in 
Sierra Leone, West Africa. I want you to know that the Beef, Dairy, 
Pork Councils wrote out curriculum materials for teachers to use for 
cooking and nutrition classes. Let me tell you, this was biased 
information and clearly inappropriate. As a young teacher I didn't know 
better, and many continue today not knowing any better.
    Also, when I went to Sierra Leone (1977-79) shops were selling DTD 
that the USA shipped there because it was banned here in our country 
because it was a health risk. I was appalled and ashamed that my 
country did this. I also saw clearly how the local Sierra Leonans did 
not know how to read the labels or use such toxic materials.
    These stories are about my direct experience, and just are small 
examples of the monolithic problem. Perhaps they sound unrelated to 
each other, but they are not. Perhaps they sound exaggerated, but they 
are not. The kind of industrial and chemical farming we are engaged in 
and supporting is dead wrong--as in killing us and throwing things way, 
way out of nature's balance)--affecting our food, our water, our soil, 
our bodies, our wildlife. These pieces are all interconnected and 
impact locally and globally.
    Please, I ask you to look closely and deeply into the farm bill. I 
am aware how complex this situation is with agribusiness lobbying, the 
history of subsidy, the impact on informed and uninformed REAL farmers, 
and the distasteful politics that gets played out to the detriment of 
our health.
    You have no small task on your hands. This is a huge issue about 
personal, family, community, national and international well-being; 
including the health and safety of our water, our soil, our air, our 
plants, our livestock.
    May you approach this new farm bill with wisdom!
            Kindly,

Jill.
                                 ______
                                 
                        Comment of Martha Lynch
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: East Lansing MI
    Occupation: Spiritual Director & Pastoral Care Coordinator
    Comment: Food is not a `commodity', it is the gift that sustains 
life for the whole Earth. With the health and welfare of that precious 
ecosystem precariously hanging in the balance, we must be mindful 
always of generations to come. May you find the courage to release the 
power grip that industrial agriculture has on our food, and begin to 
let in the light of science and moral understanding. Seeds must remain 
in pure form--without chemical additive or genetic modification. 
Animals must be treated humanely--able to live a life of dignity and 
comfort. `You are what you eat' is not only a catchy slogan, it speaks 
the truth of how we are making ourselves and the planet sicker and 
sicker. To continue to subsidize poisons and maltreatment of animals is 
unconscionable! It's time to subsidize and lift up small, local, 
sustainable, healthy farming practices that are organic and 
biodynamic--for the sake of our children and grandchildren!
                                 ______
                                 
                         Comment of Megan Lynch
    Date Submitted: Saturday, May 19, 2012, 9:06 a.m.
    City, State: Prairie Village, KS
    Occupation: Hospital Admitting Representative
    Comment: We need food to live. Why wouldn't the government want to 
make sure that we and our kids have access to healthy foods? I hope 
they take more of an interest in the issue.
                                 ______
                                 
                         Comment of Marcy Lynn
    Date Submitted: Friday, May 18, 2012, 7:23 p.m.
    City, State: Brooklyn, NY
    Occupation: Parent
    Comment: Any farm bill should subsidized and support organic 
agriculture and organic farming practices (even where full organic 
certification isn't affordable). Organic vegetable crops should be 
subsidized so as to make organic local vegetables more affordable for 
all. Our govt. should not be subsidizing junk crops like soy or corn or 
potatoes or even wheat. They are used to make junk foods and flours 
that make . . . more junk foods. They are cheap (because they are 
subsidized) and that lines the pockets of statin makers but frankly 
most of us are having trouble affording $5 bunches of organic broccoli. 
So subsidize vegetables, not junk starch crops. Do not support any GMO 
crops. And work to eliminate pesticides over all so we keep our bees--
which are indeed needed to keep crops growing and maintain food supply. 
Also would request:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        andJobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Matthew Lynn
    Date Submitted: Sunday, May 20, 2012, 11:08 p.m.
    City, State: Venice, CA
    Occupation: Film/TV
    Comment: Please support a healthy farm bill that puts organic 
farming and free-range livestock as a priority.
    Why can't we STOP subsidizing corn, which just leads to obesity, 
and Start subsidizing organic and healthy farming practices?
    After all, we are what we eat, and American's are growing tired of 
eating factory farmed subpar food!
    Please help make a difference in the right direction!
    Thanks!
                                 ______
                                 
                         Comment of Meghan Lynn
    Date Submitted: Saturday, May 19, 2012, 1:31 p.m.
    City, State: Antioch, IL
    Occupation: Education
    Comment: I am a supporter of Organics as they are much healthier 
with all the chemicals that are being put into people's foods. It is 
important that people are educated on the facts of what is going into 
their foods so they can make more informed decisions on the products 
they consume. As Americans, we should be supporting healthier 
lifestyles with no GMOs. The number of people with diseases such as 
cancer and diabetes rising at an alarming rate.
                                 ______
                                 
                         Comment of Brenda Lyon
    Date Submitted: Saturday, May 12, 2012, 3:41 p.m.
    City, State: Branchport, NY
    Occupation: Unemployed
    Comment: Our counties backpack program feeds over 400 children each 
weekend. Children who otherwise would not have food to eat. Cuts to the 
SNAP Program will put these children in jeopardy.
    You may want to visit Milly's Pantry in Penn Yan and meet with the 
director of this program Becky Holder, to get the specifics and needs 
of our children. Becky's mother Milly, a retired lunch lady, started 
this program.
                                 ______
                                 
                         Comment of Janet Lyon
    Date Submitted: Sunday, May 20, 2012, 1:28 a.m.
    City, State: Missoula, MT
    Occupation: Land Owner/Social Worker
    Comment: As a family descendent of Montana homesteaders, I know the 
importance of protecting our country's family farms and preventing 
them, through education and legislation, from becoming sources of 
pollution of our land and water. Let the farm bill pave the way for 
helping Americans become healthier and protect our land and water 
through the use of environmentally sound best management practices. The 
organic food movement is an idea whose time has come. Let the new farm 
bill provide the support to this movement that we all deserve.
    The Whole World Is Watching.
                                 ______
                                 
                         Comment of Curt Lyons
    Date Submitted: Friday, May 18, 2012, 11:08 p.m.
    City, State: Fort Collins, CO
    Occupation: Construction
    Comment: I am so tired of big agribusiness that only cares about 
the bottom line of making money wining out over farms trying to grow 
the best most healthy food, that I would actually feed my child.
                                 ______
                                 
                        Comment of Shannon Lyons
    Date Submitted: Saturday, May 19, 2012, 8:27 a.m.
    City, State: Sarasota, FL
    Occupation: Yoga Instructor
    Comment: No farms, no food. The people are exclaiming that they do 
not want mass produced, processed, and shipped food. See the 
opportunity to thrive as a well-nourished country fed on local family 
farms. Support local economy and enrich the lives of humans, animals, 
and soil with humane and sustainable practices.
                                 ______
                                 
                         Comment of Charles Ma
    Date Submitted: Friday, May 18, 2012, 10:25 a.m.
    City, State: Magnesio, MA
    Occupation: Engineer
    Comment: Please support our local farmer. Stop subsidizes to big 
farmers & the production of food that is making us and our planet sick. 
Please support feeding the hungry!
                                 ______
                                 
              Joint Comment of Joan and Wallace MacDonald
    Date Submitted: Saturday, May 19, 2012, 8:41 p.m.
    City, State: Mountain View, CA
    Occupation: Retired Teacher and Management Analyst
    Comment: We feel strongly that subsidies to agribus should stop. 
That is wasted dollars that should be given to authentic small family 
farms, especially organic farms. Subsidies to huge corn producers for 
ethanol is totally unrelated to food production.
    Further, we want more inspectors to protect consumers from tainted 
or diseased food. The instances of food that has had to be recalled 
have risen. Clearly, more efforts in prevention are needed.
    And GMO foods need clear labeling now.
                                 ______
                                 
                       Comment of JoAnn Macdonald
    Date Submitted: Saturday, May 19, 2012, 8:12 a.m.
    City, State: Joppa, MD
    Occupation: Retired
    Comment: I'm an ``eater'', and I want my food safe from farms to my 
table. Organic should mean No pesticides, no antibiotics, and only 
preservatives that have been approved safe for consumption. Salt is 
one!
    We have come so far in protecting the health of our citizens. Don't 
stop now!
                                 ______
                                 
                        Comment of Leo MacDonald
    Date Submitted: Friday, May 18, 2012, 6:46 p.m.
    City, State: Erwinna, PA
    Occupation: Chemistry Teacher
    Comment: Our food is healthier when organic and natural and humane 
methods of food production are used. Large doses of toxic chemicals are 
bad for the plants (pesticides) and bad for animals (hormones and 
antibiotics) and finally bad for the end consumer (the people who eat, 
which includes ALL people. Big corporate agri-chembusiness wants 
everyone to think these ``lots of chemicals'' are essential to food 
success. Nothing is further from the truth. My family eats healthy 
organic local food and are healthier and my little kids (2 & 4) will 
grow up stronger without chemical toxins in their bodies. Please enact 
a farm bill that supports small healthy farms and discourages large 
factory farms dependent on chemicals.
                                 ______
                                 
                       Comment of Myra MacDonald
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Berkley, MI
    Occupation: Educator
    Comment: I want my food to be organically grown and not genetically 
modified. I also want it clearly labeled so I know what I am buying. 
Please make sure any legislation that passes includes these two 
important considerations. Thank you.
                                 ______
                                 
                    Comment of Shaun MacDonald Hawke
    Date Submitted: Sunday, May 20, 2012, 1:16 a.m.
    City, State: Angelus Oaks, CA
    Occupation: Teacher
    Comment: Safety of our food production should be one of our 
nation's highest priorities. The safety of our food production depends 
on diversity--in seed resources, ideas, and people in farming. Small 
farms and organic practices have had centuries to prove their safety. 
Corporate giants do not protect our nation's food supplies--except in 
ways it helps their bottom line.
                                 ______
                                 
                      Comment of Marie MacDougall
    Date Submitted: Friday, May 18, 2012, 3:13 p.m.
    City, State: Lovelock, NV
    Producer/Non-producer: Producer
    Type: Field Crops, Poultry/poultry products
    Size: 50-150 acres
    Comment: I am completely against tax money being used to pay 
subsidies to agricultural corporations, under any guise including crop 
insurance. Enough already--we are hurting in this country, even those 
of us with jobs. It angers me to see my hard-earned dollars being 
handed over to corporations.
                                 ______
                                 
                       Comment of Adam MacGregor
    Date Submitted: Friday, May 18, 2012, 2:49 p.m.
    City, State: Pittsburgh, PA
    Occupation: Communications Specialist
    Comment: I urge the committee to oppose any measure that would 
weaken or dismantle SNAP by cutting its funding or changing it to a 
block grant program. SNAP is a vital safety net program that must be 
protected and strengthened to meet the still-growing need from families 
who are reeling from the effects of the economy. Reducing its funding, 
altering its structure, or otherwise artificially contracting the 
program in spite of this need spells trouble for hungry households 
across our country. I call upon you to please also protect and 
strengthen important anti-hunger programs like TEFAP and CSFP in the 
2012 Farm Bill reauthorization.
                                 ______
                                 
                      Comment of Susanna MacGregor
    Date Submitted: Friday, May 18, 2012, 10:04 p.m.
    City, State: Fairfield, IA
    Occupation: Architectural Designer
    Comment: I am very concerned that corporate agriculture interests 
are controlling and co-opting most of the Agriculture legislation. I 
want subsidies to big corn and soy and similar commodity producers to 
be cut, so that the least healthful food no longer is the cheapest for 
consumers. I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    For the sake of the health of our people and the well-being of our 
environment, we must move toward sustainable agriculture--more 
conversion to organic practices.
                                 ______
                                 
                      Comment of Therese MacKenzie
    Date Submitted: Friday, May 18, 2012, 5:38 p.m.
    City, State: Chicago, IL
    Occupation: Education
    Comment: Food safety concerns affect more than food. The future of 
our soil, air, and water are involved. Please do anything possible to 
stop wasting money on agribusiness and everything possible to support 
organic farming.
    Thanks!
                                 ______
                                 
                         Comment of Deb MacLeod
    Date Submitted: Friday, May 18, 2012, 3:11 p.m.
    City, State: Nantucket, MA
    Occupation: Small Elegant Space Designer
    Comment: Should be obvious to everyone by now that 3 generations 
migration away from the land & local food production has changed the 
country's overall health. Food comes from soil. Not labs. Health comes 
from food. We are what we eat. What's working is honoring the land & 
the true stewards of that land. Stand up for this country. People will 
help you carry the banner! Thank you!
                                 ______
                                 
                       Comment of Dianna MacLeod
    Date Submitted: Friday, May 18, 2012, 1:54 p.m.
    City, State: Langley, WA
    Occupation: Writer
    Comment: We need real reform that places the health of consumers 
above the profits of agribusiness. Support organics, family farms, and 
agricultural practices that enhance, not destroy, the land and water.
                                 ______
                                 
                     Comment of Margaret Maciborka
    Date Submitted: Friday, May 18, 2012, 4:39 p.m.
    City, State: San Francisco, CA
    Occupation: Commercial Insurance Underwriter
    Comment: Just as food sustains us, we must sustain the producers of 
quality, chemical-free food not ``Big Ag'', but those that care about 
the land and the air and water quality that result from their 
operations. We must also support methods to get good quality food to 
those less fortunate. These methods could be funded by eliminating 
subsidies to ``Big Ag''. It's time to cut the purse strings!
                                 ______
                                 
                      Comment of Christine Maciel
    Date Submitted: Wednesday, May 09, 2012, 10:07 p.m.
    City, State: New Windsor, NY
    Occupation: Retired
    Comment: Food is the most important, basic necessity for every one 
of us.
    To neglect to protect our food producers and encourage them to use 
safe sustainable methods is unthinkable. And to refuse to provide food 
aid for those of our most vulnerable citizens, our children and our 
elders, is a crime.
    We must double our efforts to protect the young for hunger! They 
are our future!
                                 ______
                                 
                         Comment of Nancy Macy
    Date Submitted: Saturday, May 12, 2012, 5:52 p.m.
    City, State: Boulder Creek, CA
    Occupation: Director of Recycling
    Comment: Eliminate subsidies to industrial agriculture (corn, 
soybeans, canola or rape seed, wheat and rice) in favor of vegetables 
and fruit (encourages health eating and can reduce obesity), and Expand 
policies which encourage and foster organic agriculture, long since 
proven to yield as much as industrial agriculture, without poisoning 
the land with herbicides and pesticides (thus eventually eliminating 
the huge dead zone in the Gulf of Mexico). Retain And Fully Fund 
programs that benefit women with children (Food Stamps and WIC).
                                 ______
                                 
                         Comment of Tia Maddox
    Date Submitted: Sunday, May 20, 2012, 1:44 p.m.
    City, State: Bend, OR
    Occupation: Chef
    Comment: As a restaurant chef and manager, it is of absolute 
importance the quality of food. Genetically modified foods are so 
prevalent now, and mandatory labeling of these foods at the very least 
is a must. I only choose organic foods for consumption out of fear of 
what is hiding in conventional products. Most people are not aware of 
GMOS and the toxic side effects they have on human health, no matter 
what Monsanto and other people may claim. Food is meant to be pure, 
organic, and real, not created in a laboratory or a factory. what are 
the Monsanto, the government and all the top people eating? are they 
poisoning themselves with toxic conventional foods? Highly unlikely. 
Changes need to be made now.
                                 ______
                                 
                        Comment of Monica Mader
    Date Submitted: Friday, May 18, 2012, 3:26 p.m.
    City, State: Pasadena, CA
    Occupation: Sales Representative
    Comment: To Whom It May Concern:

    As a concerned citizen, I am writing to propose reasonable ideas. 
Please do not cut funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture. Also, 
consider and take action to protect and assist small and beginning 
farmers. Stop subsidizing corporate agribusiness. Focus on and 
implement adopting best agricultural practices that put the health of 
the citizens, animals, the land and the livelihood of farmers and farm 
workers over the interests of giant agribusiness owners, insurance 
companies and industrial agriculture lobbyists.
    I support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Carleen Madigan
    Date Submitted: Friday, May 18, 2012, 11:39 a.m.
    City, State: Cummington, MA
    Occupation: Book Editor
    Comment: I would like to see more financial support for small farms 
and beginning farmers, and a decrease in funding for corporate farms. 
The future security of America's food supply rests with diversified 
small farms. Thanks!
                                 ______
                                 
                       Comment of Rebecca Madsen
    Date Submitted: Friday, May 18, 2012, 11:27 a.m.
    City, State: New York, NY
    Occupation: Attorney
    Comment: With respect, some of your constituents have found that 
the health of our children is affected by the food that is most readily 
available to them. Please help us create a healthy environment!
                                 ______
                                 
                         Comment of Jeff Maehr
    Date Submitted: Friday, May 18, 2012, 4:04 p.m.
    City, State: Pagosa Springs, CO
    Occupation: Health Care
    Comment: The House Agriculture Committee must surely be aware of 
the rapidly expanding demand for organic foods and products. Locally 
grown is ``the'' next step in this movement. This issue involves 
health, environmental safety, and national security for Americans. The 
damage done by complying with megafarming corporations which are 
attempting to control food and distribution is well established. The 
threat of GMO foods to human and animal health is well settled science. 
Please do the right thing and support organic farming in every 
possible. It will happen and is happening through other major efforts, 
so don't be left behind the ``8'' ball.
                                 ______
                                 
                       Comment of Rachel Maeroff
    Date Submitted: Friday, May 18, 2012, 6:57 p.m.
    City, State: Plantation, FL
    Occupation: Health Counselor
    Comment: The farm bill has become a piece of legislature that 
supports large corporations more than the small farmer and supports 
crops that turn into junk food. The farm bill should provide a safety 
net in Emergencies (like droughts and natural disasters) and if it 
supports Any crops, it should support fresh fruits and vegetables, the 
type of foods people need to eat more of.
                                 ______
                                 
                          Comment of Jon Magee
    Date Submitted: Sunday, May 20, 2012, 10:26 p.m.
    City, State: Greenfield, MA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a young farmer 
myself and I have benefited from the few programs already extant to 
support new growers. Under the NRCS EQIP program our farm has built 
high tunnels and improved drainage on our small acreage. From the 
ATTRA/NCAT program, I received a wealth of information as well as 
referrals to my first two full-time jobs in agriculture. We enjoy all 
the shared knowledge brought about by the SARE program's farmer grants 
and partnership grants, as well as its valuable publications. Our local 
extension provides active support for small-scale farmers, in spite of 
a lack of funding. Small scale farmers are admittedly not a large 
source of income for the large funders of agricultural education and 
research, the conglomerates of agribusiness. So it is all the more 
critical, if this way of life is to continue, that we as a society 
stand up and make it continue. This can only be done through deliberate 
action, through real funding of the programs which support new and 
small farmers. I'd like to share my support for programs that help the 
next generation of growers build strong farm businesses. As it's 
estimated that 125,000 farmers will retire in the next 5 years, it's 
absolutely critical that farm bill programs help citizens get started 
in this challenging field. I ask that the Committee endorse all of the 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Jon Magee,
(Redacted],
Greenfield, MA.
                                 ______
                                 
                       Comment of Jimmy Magiasis
    Date Submitted: Thursday, May 17, 2012, 12:38 p.m.
    City, State: Seattle, WA
    Occupation: Naturopathic Doctor
    Comment: Lower subsidies by 25% and use that money to support 
schools to feed children more organic vegetables and fruits. Take the 
rest of the subsidies and divide it among all farms, including small 
organic farms.
                                 ______
                                 
                      Comment of Jennifer Maglione
    Date Submitted: Friday, May 18, 2012, 12:57 p.m.
    City, State: Mineola, NY
    Occupation: Nurse
    Comment: I want my tax dollars to go towards good nutrition. Stop 
with the GMO's and stop denying that good nutrition is not a right in 
this country. Listen to the people not the corporations.
                                 ______
                                 
                       Comment of Angela Magnuson
    Date Submitted: Friday, May 18, 2012, 1:11 p.m.
    City, State: Louisville, KY
    Occupation: Teacher
    Comment: Our congress must defer to the wisdom of both small and 
large organic farmers. They and I believe in hard work that sustains 
the land and is meant to healthfully affect the lives of people who 
rely on their knowledge and toil. The greed that drives agribusiness is 
out of control! Our legislative bodies should be the defense against 
such insatiable operators who care little about the land and product 
they put out beyond their profitability. Please, carefully consider the 
details of the next farm bill and fight to ensure the protection of the 
land, the water and the good women and men who put their hands in both 
and sew the seeds of love and life.
                                 ______
                                 
                       Comment of Jeanne Maguire
    Date Submitted: Saturday, May 19, 2012, 11:36 a.m.
    City, State: Long Beach, CA
    Occupation: Doctor
    Comment: How long can you live without clean Food, Water & Air, the 
way Nature intended? Make the moral and ethical choice. Give us an 
organic farm bill protecting sustainable farming. The future of our 
lives and Mother Earth depend on You.
                                 ______
                                 
                       Comment of Cynthia Mahamdi
    Date Submitted: Saturday, May 19, 2012, 6:11 p.m.
    City, State: Boulder Creek, CA
    Occupation: Professor
    Comment: To be denying the needs and will of the American people in 
favor of the profit margins of agribusiness is not only anti-
democratic, it's stupid. It is jeopardizing the health of the economy 
and the health of the nation by favoring cheap, toxic, and 
nutritionally dubious products over organic, sustainably farmed, 
nutritious food. Will 2012 go down in U.S. history as the year that 
democracy died in America? Will we remember this administration as the 
government that sold its people to big business interests? If 
legislators would simply take the time to inform themselves instead of 
behaving like paranoid sheep, following whatever they are told, 
ignoring any information that does not adhere to the official line of 
corporate power, we might have a chance. There is So Much on the line--
please, think carefully about what you are doing.
                                 ______
                                 
                       Comment of Margaret Mahler
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: Tonganoxie, KS
    Occupation: Retired Kansas Educator
    Comment: Dear Rep. Lynn Jenkins,

    Per Sen. Dole's Tell The Truth 1996 Presidential campaign ad--
Kansas homesteaders and small family-owned farms have been the 
foundation for employing and feeding livestock and people.
    I support legislation for sound conservation practices and avoiding 
GMO's, big corporations including Monsanto's practices and greed.
    I support buying local products and educating youth through 4-H and 
FFA.
    Thank you.
                                 ______
                                 
                        Comment of Kate Mahoney
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Dartmouth, MA
    Occupation: Caretaker/Organic Gardener/Innkeeper
    Comment: It is time for a drastic overhaul in our food industry. 
Every day I read about foods that are actually poisoning our bodies and 
making us sick. GMO's and pesticides are prevalent at unhealthy levels 
in the food we buy in our grocery stores. Anyone voting against this 
bill is voting based on ignorance. Wake up. Our representatives need to 
do some extra homework and reading so that they are aware of the bigger 
picture here. It is absolute and utter Ignorance that keeps a bill like 
this from passing. It is a Common Sense bill. Please support it.
                                 ______
                                 
                       Comment of Valerie Maille
    Date Submitted: Thursday, May 10, 2012, 6:50 p.m.
    City, State: Hudson Falls, NY
    Occupation: Unemployed
    Comment: As what is supposed to be richest country in the world I 
think it is time we held our senior citizens with a much higher regard 
than we do. We need to make sure they want for nothing especially food. 
No senior citizen should have to make the choice of food, bills or 
medicine it should all be easily accessible to them financially.
                                 ______
                                 
                       Comment of Claudette Main
    Date Submitted: Friday, May 18, 2012, 8:59 p.m.
    City, State: Foster City, CA
    Occupation: Travel Agent
    Comment: As a non-smoker who was diagnosed with Lung Cancer 6 
months ago, I am extremely concerned with all of the pesticides and 
chemicals that are used on our Agricultural products. I only buy 
organic now and will not expose myself to these dangerous pesticides 
and chemicals ever again. Life is too precious to waste it on cheap 
poisonous fruits and vegetables!
                                 ______
                                 
                       Comment of Gretchen Maine
    Date Submitted: Saturday, May 19, 2012, 11:52 p.m.
    City, State: Waterville, NY
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 500-999 acres
    Comment: To the members of the House Ag Committee:

    We are dairy farmers in central NY state. We are third generation 
farmers on this 500 acre farm. ``We'' have been here for over 100 
years. It's looking more and more like the end is near. We simply 
cannot survive on $16 milk. Our feed is now almost $400 per ton and 
rising. Fuel is $4 a gallon. Fertilizer is up $80 a ton over last year. 
Everything else that we need is up.
    We figured today that we get $16 per cwt for our milk. When that 
same milk is sold in the store, it fetches $44 in Wal-Mart, more in 
other stores. In other stores it can fetch up to $48+. That is just not 
right. Our milk is robbed from us. We have to pay hauling to the 
processor's and then to the store. Since when should we have to pay 
``freight'' on what we sell? The buyer should be paying the 
``freight''.
    If the Dairy Security Act gets into the farm bill, nothing will 
change. We will still be at the mercy of the processors.
    I am a member of the National Family Farm Coalition as well as 
Progressive Agriculture Organization and get no respect. We support S. 
1640, the Federal Milk Marketing Improvement Act, or the Cost of 
Production Bill. We have tried to get support for it, but we have been 
shut out of everything. Whenever there is a hearing of any kind, the 
only ones who can speak are handpicked by the co-ops, and the 
independent farmers have no say. Politicians have been bought by the 
big co-ops, lobbyists, and big processor money.

    Someone Needs To Listen!

    No industry can survive without their cost of production. We Need A 
Cost Of Production!
    At the same time we need a supply management program. With the 
Dairy Security Act supply management would be ``voluntary.'' What would 
keep the oversupply of milk from being balanced on the ``volunteers'' 
backs while the big guys just kept cranking out more milk? If the DSA 
were in effect now, ``volunteers'' would receive a payment only if they 
purchased enough insurance to cover their losses and would still be 
penalized if they did not cut their production 2% below their bases.

    We Cannot Survive This BS.

    Please, please take a look at S. 1640 and its merits. If the Dairy 
Security Act is passed, we are done. Yes, the major co-ops support it, 
but that doesn't mean that their individual members do. They really 
don't have anything to say. The masterminds of the co-ops do pretty 
much as they please as long as their pockets are being filled.
    I applaud Senator Gillibrand for standing up for her farmers and 
wish that other politicians would follow suit.
            Sincerely,

Gretchen Maine.
                                 ______
                                 
                         Comment of Donna Mains
    Date Submitted: Thursday, May 10, 2012, 11:34 a.m.
    City, State: Oak Park, IL
    Occupation: Executive
    Comment: There are many Americans in dire straits these days. I see 
it every day on my commute to and from downtown Chicago. Please ensure 
that these people who are in very unfortunate circumstances can 
continue to feed themselves and their families. Don't Cut SNAP. Many, 
many people need this benefit.
    Thanks.
                                 ______
                                 
                     Comment of Christopher Maiurro
    Date Submitted: Friday, May 18, 2012, 2:40 p.m.
    City, State: Brooklyn, NY
    Occupation: Small Business Owner
    Comment: When is it our turn? When will our elected officials 
represent our interests instead of those who can afford to hire 
lobbyists? Is it the fancy dinners? The escorts? What do you guys want? 
Just do your jobs . . . for once.
                                 ______
                                 
                         Comment of Judy Major
    Date Submitted: Friday, May 18, 2012, 10:25 a.m.
    City, State: Yorktown, VA
    Occupation: Retired Teacher
    Comment: I would like the government to stop subsidizing corporate 
farms and start supporting the farmers who produce healthy, non-GMO 
foods and who treat animals grown for food with respect. Our obesity 
and diabetes epidemics are a direct result of our chemical-laden food, 
and you have the responsibility and the power to change that.
                                 ______
                                 
                       Comment of Iggy Makarevich
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Cos Cob, CT
    Occupation: Artist
    Comment: It's simple. Human beings require healthy food. Human 
beings do not require genetically altered toxic junk passed off as 
``food'' by corrupt corporations and government. These things must be 
disallowed, unless your goal is to kill us all slowly, which seems to 
be the case. I must say that I do not trust any of you to do the right 
thing as you so rarely do, but hope that this plea will nudge you into 
protecting us in this matter. Farms should be natural. Not toxic. Can 
you not understand this?
                                 ______
                                 
                         Comment of Janet Maker
    Date Submitted: Wednesday, May 02, 2012, 7:40 p.m.
    City, State: Los Angeles, CA
    Occupation: Retired
    Comment: Please protect programs vital to people struggling with 
hunger. Cutting programs that help feed our hungry neighbors is 
unacceptable! Please help save things like SNAP (food stamps) and our 
Emergency Food Programs! This is not just for farmers. This impacts all 
of our Food Pantries who are struggling to help the hungry.
                                 ______
                                 
                        Comment of Anne Malcore
    Date Submitted: Wednesday, May 16, 2012, 7:11 a.m.
    City, State: Green Bay, WI
    Occupation: Membership Services Representative
    Comment: I am a huge advocate of healthy eating initiatives. I have 
recently taken on gardening, and I hope to assist with some of the 
school gardens in Green Bay this summer. With the obesity issues our 
state and nation are facing we need to connect schools to local farms 
for healthier, more nutritious lunch programs and supporting organic 
farming is essential. We are poisoning ourselves with pesticides and 
only setting ourselves up for increased health issues in the future if 
we continue to contaminate our ground water, air, and soil. We need 
sustainable, environmentally conscious agricultural ingenuity that 
awards farmers for producing our nation's food conscientiously. Please 
be a leader in creating a new food and farm bill that will consider the 
issues we face in regards to health and nutrition; as well as, 
sustainability and environmental awareness for our future and the 
future generations to come!
                                 ______
                                 
                         Comment of Edith Malin
    Date Submitted: Friday, May 18, 2012, 12:25 p.m.
    City, State: Hatfield, PA
    Occupation: Wellness Consultant
    Comment: U.S. food and agricultural policy must focus on adopting 
best agricultural practices that put the health of its citizens, the 
land and the livelihood of (small) farmers and farm workers Over the 
interests of industrial agriculture lobbyists. Agribusiness is 
destroying too much of the quality of our food, destroying the land, 
the small local farmers, the quality of water, and their pesticides are 
killing the honeybees, etc., etc., etc. GMO producers are using far too 
many chemicals on the land, and crushing local farmers for patent 
infringement when their plants 'infect' the neighbors fields. 
Agribusiness is not the future.
                                 ______
                                 
                        Comment of Robin Mallery
    Date Submitted: Friday, May 18, 2012, 10:57 a.m.
    City, State: Grass Valley, CA
    Occupation: Professional
    Comment: From this day forward, our decisions must be made with the 
environment in mind. We can no longer let Big Farm/Ag Industry rule, we 
need to support small, local farms and farmers. Think about your 
children and grandchildren as you make recommendations for the future. 
Thank you.
                                 ______
                                 
                        Comment of Janie Malloy
    Date Submitted: Friday, May 18, 2012, 12:12 p.m.
    City, State: Canby, OR
    Occupation: Designer
    Comment: Please stop subsidizing a system that is too big to fail. 
Sustainable agriculture does not include GMO seeds, monoculture, or 
rendering the soil impotent for seven generations. Be responsible, and 
do the right thing. Humanity may depend on it.
                                 ______
                                 
                        Comment of Peggy Malnati
    Date Submitted: Saturday, May 19, 2012, 12:41 p.m.
    City, State: Farmington Hills, MI
    Occupation: Writer/Journalist
    Comment: As the daughter of farmer who grew up on a multi-
generation family dairy farm, the farm bill is something that I always 
keep an eye on, as I know that it can have a big impact on the already 
difficult lives of small family farmers. For too long, the farm bill 
has been written for Big Ag and has failed to address the needs of 
smaller family farms and more sustainable farming practices. It's time 
we changed that and created a saner and fairer method of producing the 
foods this country and much of the rest of the world relies on for its 
needs.
                                 ______
                                 
                         Comment of Ann Malone
    Date Submitted: Friday, May 18, 2012, 1:05 p.m.
    City, State: Sugar Grove, VA
    Occupation: Home Health Aide
    Comment: Subsidies need to be cut to the huge producers and CAFO 
farms, and help given to the family farmers. Here in the 9th, I have 
many neighbors who have dairy and meat cows, or raise crops for market. 
They have to compete with the ``too big to fail'' welfare farms. Time 
to give that subsidy money to producers who are actually living and 
working on the farms, not to huge corporations.
    I do not want to eat pesticides or GMO food. Special consideration 
needs to be given to those farmers who are caring for the land, and not 
putting poison into the food chain. Organic standards need to be 
respected and treated fairly. It is the agribusiness sector who needs 
to be regulated and closely watched, the organic farmers need to be 
able to sell their crops without spending huge amounts of money to the 
government.
    Thank you for the opportunity to comment.
                                 ______
                                 
                      Comment of Barbara Manalili
    Date Submitted: Sunday, May 20, 2012, 9:09 a.m.
    City, State: Baiting Hollow, NY
    Occupation: Teacher
    Comment: I have a family food garden. This garden provides food for 
4 to 6 people all season. The reason for this garden is that I do not 
trust the food at our chain food stores. England pulls yellow dye #6 
from all foods. But our government doesn't think that it's ``That'' 
harmful to the people in the USA! Shame on us. I hope that your vote is 
Yes to help our Organic Farmers/ranchers and to support the acts/bills 
that help our producers!
            Thank you,

BJM.
                                 ______
                                 
                        Comment of Paula Manalo
    Date Submitted: Thursday, May 03, 2012, 11:42 p.m.
    City, State: Redwood Valley, CA
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Field Crops, Fruits, Livestock, Poultry/
poultry products, Specialty Crops, Vegetables
    Size: 50-150 acres
    Comment: I am a first-generation beginning farmer and part of the 
next generation of American farmers. At 30 years old, my fiance and I 
lease over 100 tillable acres and roughly 1,000 acres of rangeland. We 
are a diverse farm selling primarily direct-to-consumer. The challenges 
we have faced and continue to face are access to land and lack of 
capital. This farm bill needs to provide solutions to these problems if 
more young people are going to enter farming. We have benefitted from 
NRCS EQIP cost-share assistance and BFRDP-funded educational programs. 
Please allocate more funding to these important programs; we are a 
testament to their success. Support for small- and medium-size farms, 
diverse sustainable farms, and beginning farmers is an investment in 
the future of American agriculture and food security.
                                 ______
                                 
                       Comment of Florie Manasia
    Date Submitted: Saturday, May 19, 2012, 8:55 a.m.
    City, State: Simsbury, CT
    Occupation: Retired
    Comment: We the people need to have laws protecting our food 
production. There is so much garbage put in today's foods and so much 
chemicals and this needs to be stopped. I know the population is 
getting out of control, but let's not fill our food with chemicals so 
people get sick. There are other things that should be cut that are 
draining our taxes and that is benefits to all government employees. 
Cut heath and retirement benefits and see how much money we save. Pass 
laws to stop food from coming from China and encourage farmers to grow 
healthy food and safe and humane animal production for food right here 
in our country. That is what you should be doing. That is your job.
                                 ______
                                 
                       Comment of William Mancuso
    Date Submitted: Friday, May 18, 2012, 1:23 p.m.
    City, State: Ada, OH
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I live in the middle of a food desert, surrounded by 
thousands of acres of corn and soy that is unfit for human consumption 
and is actually turned into ``foodstuff'', like high fructose corn 
syrup, that is killing the American public one soda at a time. With so 
much scientific research indicating the link to obesity, etc., how can 
our ``Representatives'' continue to kill the American public by 
providing subsidies and protection for what, in effect, is state 
sanctioned genocide one mouthful at a time? And actually obstruct 
access to information about the quality of the food and free choice 
about what an individual decides to eat. Is it truly about life, 
liberty, and the pursuit of happiness for the majority? Or is it all 
about perpetuating the entrenched bureaucracy, about making money at 
any cost, even if it means the ultimate elimination of the consumer and 
American public? Are there no genuine representatives for the majority 
of voting and working people left? Representatives concerned about 
authentic pursuit of life, liberty and happiness for all? I'm afraid 
Jefferson would be ashamed to see that what he, and so many others, 
worked so diligently to create had degenerated to such a mean spirited 
form of government based more upon economics than human rights.
                                 ______
                                 
                       Comment of Melissa Mandel
    Date Submitted: Saturday, May 19, 2012, 1:14 p.m.
    City, State: Oakland, CA
    Occupation: Retired Computer Programmer
    Comment: We have been supporting organic agriculture for over 20 
years. It's about time for the U.S. to step up to this plate and move 
off the deadly and dead-ended chemical agribusiness position. The 
people and the planet require this change for survival and we all know 
it in this day.
                                 ______
                                 
                     Comment of Bonnie Mandell-Rice
    Date Submitted: Friday, May 18, 2012, 4:13 p.m.
    City, State: Broomfield, CO
    Occupation: Retired Attorney
    Comment: Our government's policy for farmers has for too long 
padded the wallets of agribusiness, encouraged destructive farming 
practices, and made the most unhealthy foods the most affordable. We 
have an obesity crisis in this country. We have sky-rocketing medical 
costs, many (if not most) of which are attributable to obesity-related 
disease. Factors in obesity, diabetes, heart disease and cancer include 
too many fats, meat, dairy, processed foods--which typically are loaded 
with sugar, fat, corn and/or wheat. These are all the foods that our 
farm policy supports and subsidizes. When people eliminate these foods, 
many of their health issues resolve. We need to stop subsidizing those 
foods and begin to subsidize or incentivize growing organic fruits and 
vegetables. In doing so, we also will help to repair soils and water 
quality. While we are at it the farm policy also should encourage 
humane animal husbandry, allowing the animals free range and humane 
care, all of which helps people by providing healthier animal products 
and a cleaner environment. Thank you.
                                 ______
                                 
                        Comment of Niall Mangan
    Date Submitted: Friday, May 18, 2012, 12:12 p.m.
    City, State: Cambridge, MA
    Occupation: Graduate Student
    Comment: I feel it is very important to support small family farms 
as well as large corporate farms. Additionally, all incentives, 
including any tax or insurance incentives, need to be tied to 
sustainability and conservation requirements. We need to continue to 
support organic and sustainable farming research, so that farms of all 
sizes continue to improve in their farming techniques. The goal should 
be healthy, sustainable food which is profitably produced, not just 
more profits for large agricultural producers.
    I do not support any farm bill which reduces these efforts, and 
support one which improves such programs.
                                 ______
                                 
                        Comment of Michelle Mann
    Date Submitted: Saturday, May 19, 2012, 3:34 a.m.
    City, State: Encinitas, CA
    Occupation: Homemaker
    Comment: No more big gov't./corporate America in my food. Let 
people do what they do best, work on their corner of the world on small 
local level. It's the key to greatness.
                                 ______
                                 
                         Comment of Patti Mann
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: Nederland, TX
    Occupation: Disabled
    Comment: I have MS and to keep my condition from declining further 
I need food that has been grown without chemicals. I am against 
chemicals in growing food, yes, I am aware that there will be higher 
prices but for my health it will be worth the cost.
                                 ______
                                 
                         Comment of Sarah Manno
    Date Submitted: Sunday, May 20, 2012, 2:49 p.m.
    City, State: Ft. Collins, CO
    Occupation: Retired
    Comment: Please protect the interests of small farmers, organic 
farmers and healthy sustainable practices in this farm bill. These are 
the wave of a sustainable future which needs to supplement if not 
replace the destructive fallout from the giant farming corporations.
                                 ______
                                 
                      Comment of Callista Mansell
    Date Submitted: Saturday, May 19, 2012, 3:27 p.m.
    City, State: Greensboro, NC
    Occupation: Consultant
    Comment: I am in favor of supporting our local farmers and their 
efforts to provide fresh local foods in our community. One of the 
farmers at our local market even takes donations of fresh food and 
shares it with an after school program in a needy neighborhood. Our 
local farmers care about us. Let's show them that we care about them 
too.
                                 ______
                                 
                      Comment of Steven Mansfield
    Date Submitted: Thursday, May 17, 2012, 8:53 p.m.
    City, State: Miami, FL
    Occupation: Paramedic
    Comment: I believe we should fully support this organic farming 
initiative. I believe America must get away from it's addiction to 
insecticides, herbicides and all forms of poisons that we're spraying 
on our farms every year. America needs to shift to a more natural, 
renewable form of farming now. I believe all the extra money we can 
afford to allocate to this organic movement, we must do it now. Right 
now, I'm a paramedic. But I'm taking courses to transfer to the 
University of Florida to major in Plant Sciences and I think this bill 
needs to be passed ten times more than I think we need to be in the 
Middle East.

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Program.
                                 ______
                                 
                        Comment of Deborah Manus
    Date Submitted: Thursday, May 10, 2012, 1:53 p.m.
    City, State: Oak Park, IL.
    Occupation: Doctor.
    Comment: Please adopt the Bowles-Simpson principle of protecting 
the disadvantaged and avoiding measures that would increase hunger, 
poverty and hardship. Increase both TEFAP and SNAP. As a volunteer at 
my local food pantry, I have witnessed an increase in need for food 
from the pantry, in working poor, those on food stamps, in families and 
in the mentally ill. Cutting SNAP will cause more hunger and suffering.
                                 ______
                                 
                     Comment of Al Francis Maquilan
    Date Submitted: Friday, May 18, 2012, 1:28 p.m.
    City, State: Alameda, CA
    Occupation: Student
    Comment: Dear Mr. Stark,

    Please push towards the Organic agriculture bill. I believe that as 
a nation with an increasing number of people with obesity, this is a 
step in the right direction. We must catch up with the rest of the 
world in terms of food regulation.
                                 ______
                                 
                       Comment of Nathaniel Maram
    Date Submitted: Saturday, May 19, 2012, 2:22 p.m.
    City, State: Boone, NC
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery
    Size: 50-150 acres
    Comment: It is farmers--not housing or industrial developments that 
feed us. What the corporate farms produce cannot be called food, rather 
an exotic blend of chemicals. As costs escalate the small farm cannot 
keep up.
                                 ______
                                 
                       Comment of Marc Marchioli
    Date Submitted: Friday, May 18, 2012, 7:19 p.m.
    City, State: Pittsburgh, PA
    Occupation: Physician Assistant
    Comment: We need clean, healthy and wholesome food to support a 
healthy America. It's time we said no as citizens of the U.S. to 
conglomerates that have only a profit motive while using every dirty 
hand trick in the book to produce what appears to be food but is in 
fact poison.
    Let's support the small farmers and independents of American. We 
care and we vote!
                                 ______
                                 
                    Comment of Merle Ziporah Marcus
    Date Submitted: Friday, May 18, 2012, 3:51 p.m.
    City, State: Second Mesa, AZ
    Occupation: Seamstress, Organic Cook
    Comment: Please take our food safety seriously. Pesticides, toxins 
from overcrowding in commercial feedlots & chicken factories, 
widespread use of antibiotics because of the poor sanitary conditions 
are important considerations.
                                 ______
                                 
                        Comment of Jean Margolis
    Date Submitted: Friday, May 18, 2012, 4:23 p.m.
    City, State: Grants Pass, OR
    Occupation: Retired
    Comment: We need to empower our small farms and rein in the use of 
pesticides, GMOs and artificial fertilizers which are killing the soil 
and impacting the environment negatively.
                                 ______
                                 
                      Comment of Jennifer Mariano
    Date Submitted: Wednesday, May 9, 2012, 3:48 p.m.
    City, State: Fountain, CO
    Occupation: Director of Programs, Food Bank
    Comment: Please do not make cuts to the farm bill. Our local food 
pantries continue to see a rise in the number of people seeking 
assistance. These are families and individuals that are working and 
truly trying to make ends meet, but they simply don't make enough to 
cover all of their expenses. If you make cuts to vital programs like 
SNAP, TEFAP, and CSFP, these folks will be forced to make decisions 
between paying bills and feeding their families. They will spend less, 
which will in turn affect the economy.
    Please consider going to a local food pantry and taking some time 
to meet those that are struggling to make it work.
                                 ______
                                 
                       Comment of Lorraine Marie
    Date Submitted: Friday, May 11, 2012, 10:46 a.m.
    City, State: Colville, WA
    Occupation: Self-Employed Writer, Craftswoman
    Comment: With record-high autism and childhood obesity rates, etc., 
and the accompanying tax expense, we cannot afford to keep cranking out 
poison-grown foods. We need to support organic ag to the highest 
degree. That should include organic foods for all school lunch programs 
and for food assistance recipients.
            Sincerely,

Lorraine Marie.
                                 ______
                                 
                      Comment of Mart Marinkovich
    Date Submitted: Friday, May 18, 2012, 3:35 p.m.
    City, State: Port Townsend, WA
    Occupation: Retired Corporate Executive from United Airlines
    Comment: Dear Norm, always good to have an opportunity to chat with 
you. We all know that cuts have to be made. But we need to prioritize 
cuts by keeping programs/funding in areas that are ``green'' and that 
provide solutions to eco-bombs, and offer options for sustainability.
    I have concerns about the farm bill.
    This is no time to be cutting funding to vital programs such as 
nutrition, conservation and support for organic and sustainable 
agriculture.
    Please use your influence to ensure that the farm bill is forward 
looking, and does not simply continue the support of old guard 
corporate agribusinesses.
    I wish you a healthy and successful summer, and thank you for your 
service to the 6th congressional district.
                                 ______
                                 
                         Comment of Carole Mark
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Evanston, IL
    Occupation: Retired
    Comment: While we suffer as a nation from major health issues, the 
connection to food availability and farming becomes more and more 
significant. Healthy food leads to healthy citizens. Time is now to 
eliminate toxins in the food supply.
                                 ______
                                 
                         Comment of Lynne Marko
    Date Submitted: Friday, May 11, 2012, 10:31 a.m.
    City, State: Kalispell, MT
    Occupation: Hospitality Industry
    Comment: It is time for a sensible bill that protects organic and 
small farm production. Subsidies going to commercially large 
agriculture is not right when it is squeezing out the small farm 
operations. A free and just society allows for diversity. Thank you.
                                 ______
                                 
                      Comment of Bertha Markowicz
    Date Submitted: Friday, May 18, 2012, 1:29 p.m.
    City, State: Portland, OR
    Occupation: Clothing Designer
    Comment: We need local, organic produce that is healthy for the 
planet as well as our bodies. when people eat produce that has not been 
treated by chemicals, they use less health care, they are more 
productive and the planet can keep producing healthy food. Preserve 
this for your children and grandchildren.
    Supporting smaller, and organic farms helps communities on non 
organic farms, all of the chemicals that are used create health 
problems to the workers, who do not have health insurance, and end up 
in emergency care. You can correct some of this by increasing support 
to the organic farms and eliminating support for the corporate farms.
                                 ______
                                 
                       Comment of Laura Markowitz
    Date Submitted: Friday, May 18, 2012, 12:27 p.m.
    City, State: Oak Creek, WI
    Occupation: Marketing Associate
    Comment: The health of our nation's people as well as environment 
is dependent upon good food that is clean of toxins. The future of our 
children is dependent upon proper nutrition, so they can grow and learn 
and realize their full potential as the next generation. Local commerce 
and many families' livelihoods are dependent upon smaller local farms. 
As you write the next farm bill, please put the best interests of our 
country--its lands and people and long-term future--above that of 
industrial agricultural corporations. Programs supporting nutrition, 
conservation, and organic and sustainable farming are essential, not 
luxuries. Given a real chance, these are the programs that can lead us 
to a sustainable future of good health, lowering national healthcare 
costs and improving our quality of life from multiple angles. Please 
think of the big picture. Thank you.
                                 ______
                                 
                         Comment of Joan Marks
    Date Submitted: Wednesday, May 09, 2012, 5:02 p.m.
    City, State: Tehachapi, CA
    Occupation: Unemployed
    Comment: Bottom line seniors need to eat and pay bills too . . . it 
is time that attention is paid to the senior citizens needs and make 
sure that they have what is necessary to survive and forget about 
paying attention to the illegals that are in this country and draining 
the taxpayers.
                                 ______
                                 
                        Comment of Eugene Marner
    Date Submitted: Friday, May 11, 2012, 10:52 a.m.
    City, State: Franklin, NY
    Occupation: Retired Filmmaker & Theatre Director
    Comment: In the now commencing age of energy descent, many more 
people will need to be engaged in agricultural production than in the 
now expiring age of fossil-fueled industrial agriculture. The farm bill 
should encourage education in scientifically based organic methods that 
respect the environment and preserve our remaining topsoil and other 
resources.
    The farm bill should also protect agricultural lands and precious 
water from the insanity of hydraulic fracturing for yet more fossil 
fuels that are destroying the biosphere.
                                 ______
                                 
                         Comment of Mary Marsh
    Date Submitted: Sunday, May 20, 2012, 7:58 p.m.
    City, State: Atlanta, GA
    Occupation: Public Relations
    Comment: Please support local economies and small-scale farmers.
    End subsidies to those who grow large amounts of corn and soy. 
Obesity is killing our country, literally and figuratively. Encourage 
the production of fruits and vegetables!
                                 ______
                                 
                         Comment of Nancy Marsh
    Date Submitted: Friday, May 18, 2012, 5:13 p.m.
    City, State: Rancho Cordova, CA
    Occupation: Grant Writer, Parent, Volunteer
    Comment: We need healthier food for our children and ourselves--
please support subsidies to organic farms and reduce the subsidies to 
corn/soy farmers who are at the source of creating unhealthy food for 
our nation.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I am quite aware that you do not support these initiatives, but as 
always, my vote goes to those who do.
    Take a look at the positive things that the small organic, urban 
farm is doing in your neighborhood--Soil Born Farms is educating, 
feeding, growing, restoring. It is a small drop in the bucket. There is 
so much wasted land (really Wasteland) in Rancho Cordova that could be 
put to great use in our city by making healthy food available to the 
poorer residents, creating jobs and viable job skills and teaching the 
children who live here that they can have a beautiful and productive 
place in which to live . . . not just a place where gangs will soon 
reign.
                                 ______
                                 
                      Comment of Carolyn Marshall
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Mercer Island, WA
    Occupation: Clinical Psychology Candidate
    Comment: My sister is a veterinarian epidemiologist. She has worked 
for the USDA on issues such as bird flu, swine flu and mad cow disease. 
Unfortunately, the funding was cut and now she works internationally, 
helping other countries to develop plans to prevent and combat these 
potential epidemics. When funding is cut from our own programs, it's no 
wonder that there are recent incidents of mad cow disease. Do you know 
that their brains look like Swiss cheese?
    As your constituent, I ask that you support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Lisa Marshall
    Date Submitted: Friday, May 18, 2012, 8:46 p.m.
    City, State: Spring Mills, PA
    Occupation: Executive Coach
    Comment: Industrial agriculture puts the safety of our food at 
risk. Please do not continue to subsidize big agriculture at the 
expense of smaller, safer farmers.
                                 ______
                                 
                       Comment of Thomas Marshall
    Date Submitted: Friday, May 18, 2012, 1:27 p.m.
    City, State: Seattle, WA
    Occupation: Web Analyst
    Comment: Specialty crops are better for our health than the big 
five. The farm bill should encourage the production of specialty crops 
more than corn, wheat, soybeans, etc.
    Also, school lunches should be controlled by Education not by 
Agriculture. Today school lunches aren't part of children's education, 
but rather a dumping ground for cheap food.
                                 ______
                                 
                         Comment of Amy Marsman
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: Madison, WI
    Occupation: Civil Service
    Comment: Please revamp the farm bill. It is an economic and health 
imperative that we encourage organic family farms, not corporate owned 
factory farms. While a 20th century economy may have benefited from 
industrialized farm system, the 21st century economy cannot sustain 
that system. It must be reformed. I do not want my tax dollars to be 
sent to subsidize corporate farms.
                                 ______
                                 
                        Comment of Brian Martens
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Forestville, CA
    Occupation: Consultant, Winery Worker
    Comment: I grew up in a small Midwestern town in Iowa. My father 
sold International Harvestor farm machinery and I know how important 
farming is to our communities and country. Back then there were many 
small farmers and they tried to grow the best crops they could. Now the 
Big Agribusiness farms are more concerned with profits than what food 
is best for families. Because of all the chemicals used on crops today 
the soils and foods are less healthy than they were. I am now involved 
in the Organic trend to bring back the health of the soils and foods 
coming from our farms. we need more diversity on our farms and more 
organic. European countries and Japan are listening to their families 
who want healthy farms and healthy foods. Please listen to the new 
voices that are asking for more organic produce and better farming 
practices so that the United States can become a leader in the world 
for change in our food Production. We can change by listening to the 
small farmers and those interested in changing our antiquated farming 
practices. Please get the Monsanto's and other big interests to listen 
to what the people really want.

Brian.
                                 ______
                                 
                        Comment of Klaas Martens
    Date Submitted: Thursday, May 17, 2012, 10:57 p.m.
    City, State: Penn Yan, NY
    Producer/Non-producer: Producer
    Type: Dairy, Dry Beans & Peas, Field Crops, Forestry, Fruits, 
Greenhouse/nursery, Livestock
    Size: 1,000+ acres
    Comment: I am an organic farmer and also operate an organic feed 
and seed business in Penn Yan. Organic farming is a major factor in the 
economy of Yates County and throughout the United States. The demand 
for organic food is one of the few bright spots in American 
agriculture. Federal support for research and development of organic 
farming as a percentage of the total money spent on agriculture is far 
less than the percentage of farming in this country that is certified 
organic. Organic agriculture has thrived despite this lack of financial 
support from USDA. As a strong supporter of organic farming, I ask that 
you:

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Program.
                                 ______
                                 
                         Comment of Amy Martin
    Date Submitted: Friday, May 18, 2012, 3:26 p.m.
    City, State: Abington, PA
    Occupation: Chef/Mommy
    Comment: As a former executive chef, now mom of two young children, 
I want the opportunity to feed my children the best quality food 
possible. I primarily buy organic foods whenever possible, it would be 
great if more of those foods were from U.S. soil as opposed to Mexico! 
Please take this into consideration in the writing of the next farm 
bill. Let's give our children; our future, and our farmer's the support 
that they need to live healthy, prosperous lives.
                                 ______
                                 
                        Comment of Avril Martin
    Date Submitted: Friday, May 18, 2012, 9:53 a.m.
    City, State: Los Angeles, CA
    Occupation: Interior Designer
    Comment: I am tired of Big Ag getting ahead. It's time to help the 
small, organic, family farmers of this country. I purchase organic as 
much as possible and get produce from a local CSA. I want the farmers 
that are protecting my health and the environment to be supported, not 
the ones that are spraying carcinogens and planting genetically 
modified crops.
                                 ______
                                 
                       Comment of Barbara Martin
    Date Submitted: Friday, May 18, 2012, 6:20 p.m.
    City, State: Albany, NY
    Occupation: Teaching Assistant in residential placement for 
troubled teenage girls
    Comment: I am requesting that you keep all funding for vital 
programs such as nutrition, conservation, and support for organic and 
sustainable agriculture. U.S. food and agricultural policy must focus 
on adopting best agricultural practices that put the health of its 
citizens, the land and the livelihood of farmers and farm workers over 
the interests of industrial agriculture lobbyists.
    Points:

  <bullet> Do not slash $33 billion from the food stamp program, 
        leaving farm subsidies unscathed.

  <bullet> Don't pass a $33 billion new entitlement program that 
        guarantees the income of profitable farm businesses--on top of 
        $90 billion in subsidies for crop and revenue insurance 
        policies. The proposed subsidized insurance program will allow 
        giant commodity farmers and insurance companies to walk away 
        with billions in taxpayer dollars while putting the land, soil 
        and environment at greater risk. Place limitations on crop 
        insurance subsidies. Re-attach soil erosion and wetland 
        conservation requirements to crop insurance programs.

  <bullet> Don't cut $4 million from organic research funding.

  <bullet> Don't cut funding to support Beginning Farmers in half.

    I support:

  <bullet> the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286),

  <bullet> fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs,

  <bullet> the implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236), and

  <bullet> maintaining the EQIP Organic Initiative.

    In sum, I support a farm bill that protects and enhances family 
farmers and promotes environmental health and agricultural 
sustainability.
    We all live on a single planet; let's protect it and each other.
    Thank you.
                                 ______
                                 
                       Comment of Barbara Martin
    Date Submitted: Friday, May 18, 2012, 12:22 p.m.
    City, State: Newton, MA
    Occupation: Retired
    Comment: We must care for those in our nation who need support in 
this time of economic distress. Those companies who are making profits 
for shareholders while poisoning our land, air and water, should not 
receive any monetary support of any kind.
                                 ______
                                 
                        Comment of Byron Martin
    Date Submitted: Friday, May 18, 2012, 10:04 p.m.
    City, State: Danielson, CT
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery
    Size: Less than 50 acres
    Comment: The people of this country and future generations 
desperately need a farm bill that supports the majority and not the 
minority. The present system of agricultural production is not 
sustainable and creating a farm bill that supports the long term 
sustainability of our agricultural resources is the responsibility of 
our leaders. Please in the creation of the next farm bill give credence 
to the land and its resources of life and the people and future 
generations of our country rather than a few large corporations who 
primary goal is profit. We need a balanced approach of health, public 
welfare, resource preservation, economic stability and profit.

Byron Martin.
                                 ______
                                 
                         Comment of Cody Martin
    Date Submitted: Friday, May 18, 2012, 7:24 p.m.
    City, State: Burbank, WA
    Occupation: Harley Davidson Tech/Self-Sustaining Farmer
    Comment: Why would you cut funding for Small start up farmers is it 
because big agriculture has its tentacles so deep into our Federal 
government that you no longer have our best interest in mind? Is it so 
big corporations can destroy the land and feed the American public 
toxic food that causes cancer and new allergies? Your right organic 
sustainable production of foods is a waste of money let's just burn 
this one and only world we have down! You people disgust me!
            Sincerely,

Cody Martin.
                                 ______
                                 
                        Comment of Emilie Martin
    Date Submitted: Monday, May 14, 2012, 1:13 p.m.
    City, State: Alturas, CA
    Occupation: Social Worker
    Comment: I work with senior citizens and I see how difficult it is 
for some of them to make ends meet. Often, food is the item that goes 
in order to pay other bills. I urge you to maintain the programs that 
make it easier for low income senior citizens to procure food so they 
eat a healthy diet.
                                 ______
                                 
                        Comment of Holly Martin
    Date Submitted: Wednesday, May 09, 2012, 12:50 p.m.
    City, State: Bristow, VA
    Occupation: Freelance Writer
    Comment: I believe we need to reduce subsidies that are making it 
impossible for small family, organic farmers to compete with corporate 
Giants, such as Monsanto. I also believe we need to Slow Down the 
genetic engineering of crops until we get a lot more data. For example, 
the bee colonies may be dying off due to genetic engineering of crops. 
And small farmers' lands are being contaminated with GMO seeds, leading 
to huge legal entanglements that are caused by the giant agricultural 
firms and which are killing small farmers.
                                 ______
                                 
                         Comment of Jeff Martin
    Date Submitted: Friday, May 18, 2012, 1:14 p.m.
    City, State: Knoxville, TN
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: I would like the farm bill to cater towards smaller farms 
that put money back into their local economy.
    When you make changes that benefit large farms contracted by 
companies/corporations, the money is in a tight group that never 
benefits the local economy. I understand food subsidies, but you are 
subsidizing foods that may cause obesity, diabetes and unhealthy eating 
habits.
    Our goal as a country should be to provide nutritious, whole foods 
to consumers at a reasonable price without bias.
                                 ______
                                 
                      Comment of Katherine Martin
    Date Submitted: Friday, May 18, 2012, 4:55 p.m.
    City, State: Manchester Center, VT
    Occupation: Cook
    Comment: Dear Committee Members,

    I believe our agricultural funding and laws should be structured to 
favor smaller farms and organics. I oppose GMO crops and animals and as 
a consumer am horrified that the GMO crops are not labeled. I believe 
that no animal should be raised in an industrial setting. I see the job 
of your committee as protecting small farmers and farms, which should 
receive the bulk of any subsidies. I would like to see a reversal of 
funding to emphasize smaller and organic operations.
                                 ______
                                 
                      Comment of Gayla Martindale
    Date Submitted: Friday, May 18, 2012, 10:10 a.m.
    City, State: East Peoria, IL
    Occupation: Librarian
    Comment: Please consider the consumer and the small farms (instead 
of corporate farms) when deciding who and what is important. Don't 
continue putting money into farms that harm our health (remember the 
obesity epidemic?) and our environment. It's time to give the ``small 
guy'' a hand-up instead of giving the ``big guy'' a hand-out. Thanks.
                                 ______
                                 
                     Comment of Rena Martin-Errick
    Date Submitted: Friday, May 18, 2012, 6:47 p.m.
    City, State: Louisa, VA
    Occupation: Retired
    Comment: Think about the poor people in your district! Support 
local, small farmers in VA and in USA. If poor people can't afford to 
buy fresh, healthy produce, obesity & poor health & emergency room 
costs will continue to rise. The wealthy, of course can continue to buy 
healthy organic food no matter what it costs. Since you & your family 
never, ever have to worry about good food, I think I understand how 
hard it is for you to see the huge problem for us. We Need You To 
Support The Small Local Farmers.
                                 ______
                                 
                        Comment of Lisa Martino
    Date Submitted: Friday, May 18, 2012, 6:56 p.m.
    City, State: San Rafael, CA
    Occupation: Homemaker
    Comment: I hope this year's farm bill is more focused on promoting 
good, clean food, also that it addresses the horrible inequality 
between agribusiness and private farmers.
                                 ______
                                 
                       Comment of Lisa Martinovic
    Date Submitted: Friday, May 18, 2012, 1:54 p.m.
    City, State: Berkeley, CA
    Occupation: Wellness Coach
    Comment: It's time to wean Big Ag off govt subsidies. We must stop 
underwriting GMOs and monocropping. Start subsidizing family farms and 
organic farms. This will both create more jobs and make for a less 
toxic environment.
                                 ______
                                 
                       Comment of Janet Martucci
    Date Submitted: Friday, May 18, 2012, 8:18 p.m.
    City, State: Roanoke, VA
    Occupation: Student
    Comment: I fully support efforts that encourage organic farming. 
Agribusiness has gone too far, to the extent that it is the cause of 
many farmer suicides. The welfare of animals, people, and this Earth 
should be top priority.
                                 ______
                                 
                        Comment of Tamar Marvin
    Date Submitted: Friday, May 18, 2012, 12:43 p.m.
    City, State: East Brunswick, NJ
    Occupation: Ph.D. Student
    Comment: I am the mother of a preschooler and expectant mother of 
twins. Every trip to the grocery store is a source of intellectual, 
ethical, and financial strain for me, and I do not think it should be 
so difficult to buy food for my family that will not harm the health of 
humans, animals, and the environment. I hope you will use the farm bill 
to legislate against using harmful chemicals in food production, 
including pesticides, animal hormones and antibiotics, food additives, 
and chemically extracted and altered oils. All ``conventional'' 
products should free of these, and consumers should not be subjected to 
``premium'' prices for a product that won't harm them. Producers who 
make responsible products should be rewarded, while those who use 
unhealthy means to produce cheap food should be penalized. I look 
forward to the day when I can be assured that every product in my local 
grocery store--including those targeted to my preschooler--has been 
healthfully and ethically produced.
                                 ______
                                 
                       Comment of Timothy Masanz
    Date Submitted: Saturday, May 19, 2012, 4:47 p.m.
    City, State: Clearwater, FL
    Occupation: Retired
    Comment: First, the farm bill should support fruits and vegetables, 
the foods most Americans do not get enough of.
    Second, the farm bill should start weaning the industry off oil and 
both support local farming and local delivery of food as well as 
natural (non-chemical) fertilizing methods (manure).
    Third, the farm bill should begin securing the nation's future by 
limiting soil erosion and promoting manageable farms with sustainable 
farm practices.
    Finally, the farm bill should limit all crop supports and all 
payments of any kind to those with incomes below $150,000 as well as 
limiting total awards to those individuals.
                                 ______
                                 
                       Comment of Michael Masilko
    Date Submitted: Friday, May 18, 2012, 1:12 p.m.
    City, State: O'Fallon, MO
    Occupation: Unemployed
    Comment: Only Privately owned farms should be subsidized not 
corporate owned and all food that is or has any component of GMOs 
should be labeled. Privately owned farms/farmers should have more say 
than they do with what and how they grow food products.
                                 ______
                                 
                        Comment of Kathryn Mason
    Date Submitted: Friday, May 18, 2012, 12:05 p.m.
    City, State: Philadelphia, PA
    Occupation: Educator
    Comment: We need a bill to protect and promote the production of 
food that is healthy (produced organically and humanely) and that 
protects the environment that produces our food, our air, our water, 
everything we need to live.
                                 ______
                                 
                         Comment of Kirby Mason
    Date Submitted: Friday, May 18, 2012, 12:51 p.m.
    City, State: Austin, TX
    Occupation: Writer
    Comment: The future of America's food production must be met by 
numerous, caring, small farms committed to healthy, natural foods not 
by heartless slime factories whose products create disease.
                                 ______
                                 
                       Comments of Marilyn Mason
    Date Submitted: Saturday, May 12, 2012, 1:19 p.m.
    City, State: Evanston, IL
    Occupation: Social Worker, Semi-Retired
    Comment: I'd like to see the end to farm subsidies especially to 
big farmers who don't need it. I believe in smaller farmers, especially 
if they use sustainable processes in growing food, especially not 
adding a lot of fertilizer and pesticides that make the food dangerous 
to eat.
    Date Submitted: Saturday, May 12, 2012, 1:22 p.m.
    Comment: In addition to previous comments, I ask that you protect 
SNAP, TEFAP and CSFP. I am 76 years old and thus am one of those 
``seniors'' who need affordable food sources protected.
                                 ______
                                 
                        Comment of Richard Mason
    Date Submitted: Friday, May 18, 2012, 3:23 p.m.
    City, State: Laredo, TX
    Occupation: Retired
    Comment: Our current agricultural policy and its priorities are an 
embarrassment. Like our energy policy, there is little or no support 
for an agricultural policy that is actually sustainable for the 
generations that will follow us. From what I have read about the 
deliberations of this committee, its short-sighted priorities continue 
to destroy the quality of our farmland, disenfranchise the family 
farmer, and distribute increasingly unhealthy food to our already sick 
and obese population.
    In the interests of a healthier, more sustainable future, I 
support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Barbara Masoner
    Date Submitted: Friday, May 18, 2012, 5:58 p.m.
    City, State: Denver, CO
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: The Food and Farm Bill needs to reflect the current 
movement in food production in our country. More and more Americans are 
looking to small farmers and local producers from whom to purchase 
their food from. Help this growing number of food producers by leveling 
the playing field.
                                 ______
                                 
                        Comment of Areta Masters
    Date Submitted: Sunday, May 20, 2012, 6:53 p.m.
    City, State: Marlton, NJ
    Occupation: Engineer
    Comment: Organic food producers have spent many decades building a 
customer base and demonstrating that their methods are not only 
sustainable and healthful (to both human beings and our environment) 
but are also scalable and adequate for meeting the needs of American 
consumers.
    Industrial agricultural practices have been shown to damage the 
environment, pose health risks to consumers, and place the nation at 
grave risk due to vulnerabilities of a monocultural food system. It is 
time to stop subsidizing bad practices and begin supporting organic 
methods food production for the sake of each and every American 
citizen.
                                 ______
                                 
                         Comment of Jim Mastro
    Date Submitted: Friday, May 18, 2012, 2:40 p.m.
    City, State: Dover, NH
    Occupation: Writer
    Comment: Family farms have been the backbone of this nation since 
its inception. It is very important to me that any farm legislation be 
primarily focused on supporting family farms. I think it's also very 
important that we support sustainable and organic farming to the 
greatest degree possible. Industrial agriculture does not need 
government help.
    I am also very concerned about the volume of toxic compounds 
industrial agriculture is introducing into the environment, and I am 
absolutely opposed to genetically modified crops. As a biologist, I am 
very concerned about the health and environmental effects of these 
products.
                                 ______
                                 
                   Comment of Cassandra Mastrostefano
    Date Submitted: Wednesday, May 02, 2012, 2:40 p.m.
    City, State: McLean, VA
    Occupation: Student
    Comment: Disagreement and the stalling that has accompanied the 
2012 Farm Bill indicate that there is a need to review and (hopefully) 
restructure the methods by which farming is legislated in America. 
Currently, the farm bill acts as all-encompassing legislation which 
hits upon anything that has something to do with farming. This coverage 
is too wide and there are too many varying interests for the farm bill 
to adequately address regional concerns. Instead, there should be a 
series of farm bills covering different regions of the United States.
                                 ______
                                 
                       Comments of Haneefa Mateen
    Date Submitted: Friday, April 27, 2012, 10:59 a.m.
    City, State: Chicago, IL
    Occupation: Case Worker Counselor (Retired)
    Comment: Please support local and commercial farmers in providing 
safe and healthy foods in enough abundance that everyone in the United 
States is fed. Keep in place the Food Depositories but also TANF and 
WIC so that families have some choice of healthy foods to eat.
    Date Submitted: Wednesday, May 09, 2012, 5:27 p.m.
    Comment: Many seniors worked hard and long yet their social 
security or pension checks are still lower than a young person who 
becomes disabled after 10 years employment history. In addition, there 
was discrimination against women's and other groups' jobs so that 
social security was not taken out for years. Their menial incomes 
leaves them without both food and housing.
                                 ______
                                 
                       Comment of Lynne Matejcek
    Date Submitted: Sunday, May 20, 2012, 5:18 p.m.
    City, State: Ashland, OR
    Occupation: Teacher
    Comment: Please shift to heavily regulating and taxing the use of 
toxic pesticides and GMO technologies on our crops and seeds until 
these businesses go extinct. Write into law that these corporations 
must pay for the damages to humans, animals, water sources, ecosystems 
and farms from their savage business practices.
    A promotion of Organic, sustainable and non-toxic farming practices 
needs to once again be the policy of our National Agriculture work and 
policies.
    My great mother said it best, ``The elderly and children of the 
world need to have access to the healthiest food, water and air 
available'', and I agree.
    Thank you for your time and consideration of my vote for a healthy, 
and sustainable farming future.
                                 ______
                                 
                   Comments of Beatriz Ivelisse Mateo
    Date Submitted: Wednesday, May 02, 2012, 7:02 p.m.
    City, State: Flushing, NY
    Occupation: Mom/Sales Executive/Economist
    Comment: Dear Representative:

    This message it is to ask anyone in this matter to be part of 
helping our farmers and hunger children in our food distribution and 
quality. Our agriculture is so necessary and new plans are there to 
supplement our country needs. The new machineries and labor and 
sanitations are primordial to our subsistence. The Agriculture.
    It is a vital part in our economy. Many farmer are looking to 
expand and present a better produce and services to our consumers.
    And linking the needs to the primordial distention, which is our 
children, they need your support!
    Please take part of this petition and show us your concern and 
caring!
    Help our farmers and help Feeding American Children!
    Thank you very much for your kindness again!
            Sincerely,

Beatriz Ivelisse Mateo.

    Date Submitted: Wednesday, May 09, 2012, 5:39 p.m.
    Comment: Dear Representative:

    Please review my previous letter where I express the need to help 
our farmers in productivity and sanitation. This way they can provide a 
better result and increase our economy. Our children need a lot of 
assistance in their health. Nutrition and feeding America cares among 
other for our children better health and a balance meals! Please 
support Feeding America! Thank you very much!
            Sincerely,

Beatriz Ivelisse Mateo,
Flushing, NY.
                                 ______
                                 
                        Comment of Adam Mathews
    Date Submitted: Friday, May 18, 2012, 12:29 p.m.
    City, State: Elverson, PA
    Occupation: Furniture Maker
    Comment: Organic small farms are essential to the health of the 
planet and to human beings. I have been really ill for many years, 
traditional medicine unable to help me after spending a small fortune. 
It was not until I started eating local organic produce and eschewing 
big Pharma that I started to regain my health. Commercial farming is 
toxic with it's use of GMO's, herbicides, pesticides, petro-chemical 
fertilizers, lack of crop rotation, lack of letting fields go fallow to 
restore vital minerals. All this in the name of profit before all else. 
It's easier to farm this way but the resulting food has very little 
nutritive value. Small farms are integral to the beauty of this corner 
of PA. There is nothing pretty or healthy about commercial large scale 
farming.
                                 ______
                                 
                      Comment of Christine Mathews
    Date Submitted: Friday, May 18, 2012, 12:40 p.m.
    City, State: Holliston, MA
    Occupation: Admin.
    Comment: Please support small, locally grown, organically grown 
food products, as well as conservation efforts for a sustainable 
future. Thank you for your time!
                                 ______
                                 
                      Comment of Jennifer Mathews
    Date Submitted: Saturday, May 19, 2012, 1:34 a.m.
    City, State: Spokane, WA
    Occupation: Registered Nurse
    Comment: Please do not cut funding to support local and beginning 
farmers. Please do not cut funding for research on organics. Please 
consider the ethics behind labeling genetically engineered foods. 
Consumers deserve the right to know what is in our food. Thank you.
                                 ______
                                 
                       Comment of Lillian Mathews
    Date Submitted: Wednesday, May 02, 2012, 10:49 a.m.
    City, State: Providence, RI
    Occupation: Student
    Comment: There are a couple of priorities I would like to see in 
the upcoming farm bill.
    First, I want to see much more support for young farmer assistance 
and training. Right now most farmers are over 65 years of age and the 
threat of losing their land and knowledge is threatening our country's 
agricultural base. We absolutely need more funding to help new 
farmers--particularly those focusing on organic production and 
ecologically diverse production--to survive.
    Additionally, crop insurance needs to be Affordable for small scale 
producers. With an increase in natural disaster and weather-related 
problems, there will be more issues ahead for the agricultural sector. 
Small scale and organic producers rarely opt in for this insurance 
program because of the lack of affordability.
    Additionally, nutritional assistance must remain a priority. 
Funding for low-income food stamps cannot be cut, especially in this 
time of economic need.
                                 ______
                                 
                       Comment of Millard Mathews
    Date Submitted: Saturday, May 19, 2012, 2:41 p.m.
    City, State: Waynesboro, VA
    Occupation: Retired
    Comment: I've farmed all my life and much of my health problems are 
a result bad practices of the farms I worked on. It time to start 
supporting practices that protect people, the land, water and life in 
general instead of industries who could care less about these things as 
long as they keep getting richer. I've watched what happens to land 
when the farmer stops dumping the chemicals on it, it won't grow 
anything Do the honorable thing.
                                 ______
                                 
                        Comment of Bruce Mathis
    Date Submitted: Friday, May 18, 2012, 9:58 p.m.
    City, State: Chipley, FL
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Please stop the farm payment programs, they are killing 
small farms. By subsidizing some farms and not others you are putting 
me at a great disadvantage. Let the market decide who is a good farmer, 
don't keep propping up bad farmers with payments that only serves to 
keep bad farmers farming. Currently my tax dollars are allowing 
marginal farmers to stay in business and making it hard for me to make 
a living.
                                 ______
                                 
 Submitted Statement by Richard Matoian, Executive Director, American 
                           Pistachio Growers
    The American Pistachio Growers (APG) is pleased to have the 
opportunity to submit our views for the 2012 Farm Bill. Over the 
duration of the new farm bill, the U.S. pistachio industry will 
significantly increase in production, sales and capital investment. The 
new farm bill will be of great interest to the industry.
    Since 1976, the U.S. pistachio industry has moved from producing 1 
million pounds of pistachios to a high of 528 million pounds in 2010. 
At the end of this decade we expect to have a 1 billion pound crop. In 
2011, approximately 153,000 acres were in production with 83,000 acres 
non-bearing, for a total of 245,000 total pistachio acres. We are 
projecting at least 70 percent of the production will be exported. Our 
current production is in the States of California, Arizona, and New 
Mexico.
    The APG is the grower trade association representing the interests 
of the entire U.S. pistachio industry. We are governed by a 
democratically elected board that is comprised of 18 members. The 
mission of our organization includes nutrition and health research, 
food safety, marketing (domestic and international), and government 
relations.
    Today we want to share with you our industry's thoughts on some of 
the specialty crop programs in the existing 2008 Farm Bill.

    Market Access Program

    The Market Access Program (MAP) has proven to be a very helpful 
resource to our industry. Because of our trade competition with Iran, 
we have found it difficult to break into many markets that Iran already 
dominates. An example would be the European market where MAP, plus 
industry dollars assisted in promoting and marketing our pistachios 
throughout Europe. Currently, Europe is one of our industry's strongest 
markets and continues to grow. In Asia, MAP funds assisted in opening 
up the markets of Japan and China, which ultimately lead to market 
access throughout Asia. In Japan, California pistachios are sold in 
cities such as Tokyo, Kansai, and Fukuoka as well as in new areas such 
as Tohoku and Nagoya. In 2009, a California pistachio grower, and his 
orchards, was featured on Japanese television. MAP funds made this 
possible. In addition, MAP funds allowed the industry to promote our 
product to the Japanese food industry as well as to consumers through 
in-store tastings and displays.
    We understand the budgetary limitations of the Congress, but we see 
this program as an important tool in achieving President Obama's 
National Export Initiative (NEI). The President intends to see U.S. 
exports doubled over the next 5 years; the agriculture community, 
specifically the specialty crop industry, can help to make this happen 
with MAP and U.S. backing in opening key markets for U.S. grown goods. 
We recommend that the MAP remain intact, and that the funding continues 
at the current level, $200 million each year.

    Foreign Market Development Cooperator Program

    The Foreign Market Development Program (FMD) aids to the U.S. 
agriculture industry in creating, promoting and expanding long-term 
export markets. We encourage the House Committee on Agriculture to 
continue to support this program, which is essential to specialty crop 
businesses. The FMD program is vastly different than MAP, and therefore 
we also encourage the Committee to keep these programs intact and 
separate.

    Technical Assistance for Specialty Crops

    The U.S. pistachio industry has encountered various trade barriers 
to our exports. Our pistachio industry has been able to use Technical 
Assistance for Specialty Crops (TASC) for problems encountered in the 
new European Commission's countries with regard to food safety. We have 
worked diligently throughout the years to eliminate these barriers, and 
TASC has proved to be helpful in defraying many of the costs that amass 
when dealing with these issues. We encourage the continued support by 
the House Committee on Agriculture of this very important program for 
the specialty crop industry.

    Emerging Markets

    In the last decade, China, Brazil, and India have emerged to offer 
new trade opportunities for specialty crops. In these countries, there 
is a strong middle income consumer class that has the ability to 
purchase our products. These consumers are health conscious buyers 
prepared to purchase quality U.S. products. Additionally, export credit 
and insurance programs is a necessity if specialty crops are to 
participate and benefit from NEI. We greatly appreciate the 
Administration's renewed efforts in removing foreign sanitary and 
phytosanitary barriers, but if small and medium size exporters are to 
benefit from the success of the NEI, new export programs are and will 
be necessary.

    Specialty Crop Export Credit Program

    The new farm bill is predicted to end many program crop payments. 
We learned in the past decade that in states where specialty crops can 
be planted, program crop land is being planted with fruits, vegetables 
and tree nuts. California's specialty crop production is increasing in 
crops such as almonds, blueberries and pistachios. We need to export.
    The NEI was created to assist small and medium size farmers and 
processors to export. Yes, MAP, FMD, TASC, and emerging markets are 
important, but our small and medium size businesses need export 
financing and insurance. The GSM-102 program finances in excess of $3 
billion each year, but little finance is provided to the produce 
industry.
    Furthermore, until 2008, the produce industry had the benefit of 
the Fruit and Vegetable Supplier Credit Guarantee Program, but this was 
repealed because of a fraudulent grain shipment. We recommend the re-
instatement of the Supplier Credit Guarantee Program solely for the 
produce industry. This program would be beneficial to the small and 
medium size specialty crop businesses that are increasing their exports 
in new and old markets.

    Sanitary & Phytosanitary and Quality Export Insurance Program Study

    As mentioned above, the fruit, vegetable and tree nut industry is 
now exporting in excess of $10 billion. For most exports, the shipments 
are delivered to the foreign buyer without any problem. Occasionally, a 
container is prevented from entering the foreign country because of an 
alleged Sanitary or Phytosanitary issues or quality problem, despite 
being cleared for export by the various U.S. Government inspections. If 
the container is prevented from entering the country, this can amount 
to a serious financial problem. A container being destroyed could 
bankrupt a business, and since the Federal Government is recommending 
small and medium sized businesses to export, these businesses need an 
insurance program. We envision a study that would determine the extent 
of SPS or quality problems, a self-funding export insurance program and 
its premium.

    Conclusion

    In conclusion, we strongly encourage the continuation of these 
programs through the 2012 Farm Bill. The specialty crop industry is a 
significant U.S. crop and our challenges are vastly different than 
those of program crops. Fruit, vegetable and tree nut producers work 
without the same safety net of program crops, and yet our competition 
continues to increase annually with more imports reaching U.S. shores. 
Any edge in research or market access aids our farms and therefore our 
livelihoods. We thank you for this opportunity to present our thoughts 
on farm bill programs, and we look forward to working with you further 
as this process moves toward completion.
                                 ______
                                 
                       Comment of Laurel Matsuda
    Date Submitted: Friday, May 18, 2012, 7:11 p.m.
    City, State: Kamuela, HI
    Occupation: Teacher
    Comment: Healthy and sustainable agriculture are absolutely 
Essential!
                                 ______
                                 
                        Comment of Janus Matthes
    Date Submitted: Sunday, May 20, 2012 6:34 p.m.
    City, State: Sebastopol, CA
    Occupation: Domestic Engineer
    Comment: It's time to stop big agribusiness from getting all the 
subsidies. They pollute and destroy our environment with bad farming 
practices. Let them stand on their own 2 feet. It's time to help the 
people who actually use sustainable farming practices and do not 
pollute or slowly kill us with their pesticides, fungicides and GMO's.
    Local farmers deserve the respect and help, not large multi-
national corporations that do very little to help local economies.
    You are either a corporatist or a patriot, do the right thing and 
say no to big agribusiness. Thanks.
                                 ______
                                 
                       Comment of Thomas Matthews
    Date Submitted: Friday, May 18, 2012, 6:43 p.m.
    City, State: Boulder Creek, CA
    Occupation: Sales Trainer
    Comment: The hidden agenda of inequity and manipulation by Big Ag 
is transparent now, and the sham can no longer continue. How much 
longer will we let corporate greed destroy our biosystems and 
ultimately the health of the sentient beings on our planet. The lives 
of future generations are in your hands.
                                 ______
                                 
                       Comment of Judith Mattson
    Date Submitted: Friday, May 11, 2012, 10:52 a.m.
    City, State: Tucson, AZ
    Occupation: Publisher and Advocate of Local Food
    Comment: I have invested thousands of hours and miles to expand my 
knowledge through local food producer friendships and business 
relationships. These experiences, including helping with the harvest 
days on the farm, and writing a successful VAPG grant for a colleague 
farmer/rancher, have educated me in the multiplicity of factors that 
shape food production, distribution and marketing in southern Arizona. 
It is my intent to be involved even more broadly in this movement in 
the months and years ahead. I also publish a biweekly email newsletter, 
Tucson Local Food News. Tucson also has a strong leadership alliance 
for promotion of local food for the future. A primary goal of both of 
these local food advocacy activities is to increase the sustainability 
of our local food supply here in the Sonoran Desert and southern 
Arizona through programs to strengthen the very small and small farms 
we have and also through programs to bring new younger farmers to this 
area. We look to the farm bill, the Value Added Producer Program, the 
Farmers Market Promotion Program, and others to help provide support 
for this goal. Please keep these programs in the farm bill and Budget 
so that we can continue to expand local food production in southern 
Arizona. Thank you.
                                 ______
                                 
                        Comment of Scott Maurer
    Date Submitted: Friday, May 18, 2012, 1:27 p.m.
    City, State: Leander, TX
    Occupation: Manager of Limited Partnership
    Comment: Organic and sustainable agriculture is the Only 
agriculture that will support you and your family's health. Industrial 
agriculture is killing this world. GMO's are an abomination. 
Insecticides and other toxic materials used in industrial farming are 
unacceptable to a healthy person and a healthy environment. Did you 
know that a 100 square mile blue-green algae farm in each country will 
nutritionally sustain 1 billion people on the algae alone. Write the 
farm bill as if the health of you and your kids and their kids depends 
on it--because it does. Organic and sustainable is the only way.
                                 ______
                                 
                       Comment of Yevette Maurer
    Date Submitted: Friday, May 18, 2012, 2:19 p.m.
    City, State: Lake Elsinore, CA
    Occupation: IT Manager
    Comment: We want an Organic Farm bill. In order to meet the serious 
challenges of the 21st century, U.S. agricultural policy in the farm 
bill must shift from its focus of creating cheap commodities and 
artificially propping up income for farmers, toward implementing best 
agricultural practices for sustainable and organic production methods. 
America can no longer afford to continue to blindly stumble down the 
toxic and costly path that industrial agriculture has paved for far too 
long. It's time for wise solutions posed by our nation's leading 
sustainable and organic farmers that work with nature and prioritize 
human health and environmental stewardship.
    Implement a $25 billion plan to transition to organic food and 
farming production, to make sure that 75 percent of U.S. farms are 
U.S.D.A. organic certified by 2025. Feed organic food to all children 
enrolled in public school lunch programs by the year 2020. Pass a 
Beginning Farmer and Rancher Bill to place a million new farmers on the 
land by 2020. Link conservation compliance with government-subsidized 
insurance programs and create a cutoff so each farm receives government 
funds for land only up to 1,000 acres.
    Please offer more support for Organic Farmers and small farmers in 
general. No more loop holes for big agriculture. No more favors for big 
Ag! The American people know how powerful their lobby is, how much 
money is in it for members of congress and the government, and we are 
watching you! Quit taking payoff's for big agriculture at the expense 
of the American people. Stand up for the American people, stand up for 
the small farmer, stand against big agriculture and their efforts to 
monopolize everything and shut down the little guy. Remember you, your 
children and your grandchildren will be eating this stuff too!
                                 ______
                                 
                        Comment of Debora Mawji
    Date Submitted: Sunday, May 20, 2012, 2:44 p.m.
    City, State: Sunset Beach, NC
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: I would like to see our gov't subsidize fresh foods and 
small farms, to reduce wholesome food costs and encourage local farm 
markets; instead of subsidizing huge agribusiness, corn syrup and other 
cheap processed foods. People buy what they can afford, even if it 
makes them sick (and forces healthy people to pay higher health care 
premiums due to many preventable diseases). The whole system is insane. 
Wholesome ingredients and/or unprocessed foods should be the new 
standard for any food subsidy (including food stamps and schools) and 
the American public should be heavily encouraged to support local farm 
markets.
                                 ______
                                 
                         Comment of Dawn Maxon
    Date Submitted: Friday, May 18, 2012, 6:14 p.m.
    City, State: Waterford, VA
    Occupation: Engineer
    Comment: As a working mom, I want to feed my family organic produce 
but am time-constrained so in addition to my own little organic veggie 
plot I purchase veggies at grocery stores/farmer markets also. Because 
of this, I am troubled by the decision to cut $4 million from organic 
research funding and to cut funding to support Beginning Farmers. Small 
farmers preserve genetic diversity in our crops and usually manage to 
do it organically without petrochemicals or pesticides. We need more of 
them, not less. I have no problem with reforming the farm subsidy 
program, especially as it impacts large corporate factory farms . . . 
but want to make sure that these cuts don't impact small farmers 
growing genetically diverse crops. We have wonderful growing conditions 
and soil in the U.S., and we must be good custodians of the soil and 
genetic crop diversity.
                                 ______
                                 
                         Comment of Andrew May
    Date Submitted: Saturday, May 19, 2012, 10:40 p.m.
    City, State: Emmetsburg, MD
    Occupation: Contractor
    Comment: It is time for legislation that specifically enables the 
development of 100% organic agriculture, featuring crops raised without 
industrial fertilizers and protected with methods such as integrated 
pest management, while banning all industrial pesticides.
                                 ______
                                 
                          Comment of Emily May
    Date Submitted: Friday, May 11, 2012, 10:43 a.m.
    City, State: Hickory Corners, MI
    Occupation: Student
    Comment: Dear House Agriculture Committee:

    I would like to express my support for continued mandatory funding 
for the conservation, beginning farmer, and research programs contained 
in the 2012 Farm Bill. I have lived in several rural areas around the 
country (Michigan, Washington State, Vermont, Maryland), and have seen 
that the importance of farm bill programs in these areas cannot be 
overstated.
    I urge you to continue funding for the conservation programs like 
CSP, WRP, EQIP, WHIP, etc., that conserve soil for future generations, 
keep water and air clean, and create habitat for wildlife--and perhaps 
more importantly, make rural areas beautiful and healthy places to 
live! These programs also create habitat for important agricultural 
pollinators, ensuring a secure food supply as honeybees become less 
stable in their delivery of pollination services.
    I can see just by looking at the faces of our Michigan fruit 
growers that the average age of farmers is close to retirement age. Now 
that family farms are less common and farming is seen as a difficult 
financial venture with the upfront capital required as well as the risk 
involved with variable weather in most parts of the country (just take 
this spring as an example--many fruit crops in Michigan were heavily 
damaged), it's important that the farm bill include funding to support 
beginning farmers and ranchers (and farmer-veteran programs, if 
possible). We need an infusion of youth and energy on our nation's 
farms, not to mention a guarantee of continuity of the food supply as 
our current farmers retire.
    Finally, as a graduate student in agriculture, I hope that you will 
continue support for research programs (AFRI, OREI, etc.) that help us 
continue to make strides in making agriculture more productive, safer, 
and more sustainable.
    Thank you.

Emily.
                                 ______
                                 
                          Comment of Tammy May
    Date Submitted: Thursday, March 29, 2012, 11:05 p.m.
    City, State: Paragould, AR
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock
    Size: 500-999 acres
    Comment: I know we should of had a good year income wise because we 
got a better price but input costs went up more than the commodity 
prices. I just almost went under this year and the weeds becoming 
resistant didn't help.
                                 ______
                                 
                       Comment of Sheila Mayberry
    Date Submitted: Sunday, May 20, 2012, 1:58 a.m.
    City, State: Decatur, IL
    Occupation: Customer Service Manager
    Comment: Its time to get back to real food. Not GMO pesticide 
riddle food. We need a fair and healthy food bill. One that does not 
penalize small local farmers. We need to get back to taking care of our 
farm land not killing it with glyphosate.
                                 ______
                                 
                         Comment of Corey Mayer
    Date Submitted: Friday, May 18, 2012, 2:59 p.m.
    City, State: Olympia, WA
    Occupation: Food Retailer
    Comment: The customers visiting our two stores in Olympia, WA want 
the cleanest, most local fresh food they can find. We prioritize 
supporting local organic farms and want to make sure that they are not 
run out of business by larger agribusinesses that don't always focus on 
the health of the consumer. We need to support small local agriculture 
as much as possible and not only cater to the larger food producing 
corporations.
                                 ______
                                 
                        Comment of Glenna Mayer
    Date Submitted: Saturday, May 19, 2012, 10:02 a.m.
    City, State: Jupiter, FL
    Occupation: Homemaker
    Comment: To keep subsidizing in this way, even though it is with 
insurance instead of direct payments, will be more damaging to our 
economy and to the health of our lands. The subsidized insurance 
program it proposes to replace it with will allow giant commodity 
farmers and insurance companies to walk away with billions in taxpayer 
dollars while putting the land, soil and environment at greater risk.
    Meanwhile, the small farmer still suffers from unfair restrictions 
and demands and our economy and lands suffers as well. Please have a 
real solution, not this one. Please offer real reform and not just 
alternate funding.
                                 ______
                                 
                        Comment of Robin Mayerat
    Date Submitted: Saturday, May 19, 2012, 9:52 a.m.
    City, State: Hamburg, NY
    Occupation: Piano Teacher/Blues Singer
    Comment: It's so important to take care of the land we farm on and 
to be feeding our children with safe & nutritional produce. Please help 
keep us all healthy.
                                 ______
                                 
                     Comment of Lisa Maynard-Bible
    Date Submitted: Friday, May 18, 2012, 4:48 p.m.
    City, State: Asheville, NC
    Occupation: Gardener
    Comment: Farm Bill needs to support small, local, organic, and non-
monoculture farms. Safety and health are key, not blind support of 
large corporations.
                                 ______
                                 
                         Comment of Nancy Mayo
    Date Submitted: Friday, May 18, 2012, 12:14 p.m.
    City, State: Needham Heights, MA
    Occupation: Retired MSW
    Comment: Have you noticed that as the absolute numbers of small 
family farms decreases the general quality of life in the U.S. also has 
gone down? Just take infant mortality in the U.S. as one indicator. Or 
juvenile crime. Or the amount of pollutants in our food.
                                 ______
                                 
                         Comment of Linda Mays
    Date Submitted: Friday, May 18, 2012, 11:50 a.m.
    City, State: Conyers, GA
    Occupation: Housewife
    Comment: We need an organic farm bill, we as citizens of America 
have the right to choose what to eat. We want to support our local 
farmers, please help support our local farms for organic food.
                                 ______
                                 
                      Comment of Rochelle A. Mazer
    Date Submitted: Friday, May 18, 2012, 2:28 p.m.
    City, State: Granada Hills, CA
    Occupation: Business Owner
    Comment: As a business person, parent and consumer, I am very 
concerned about the direction agriculture has gone in this country. As 
a country, we need to support small businesses, specifically the family 
farms. And as a parent, I need to have unadulterated, organic food 
available for my growing children. And for all of us consumers, we need 
the huge diversity of food that is only grown by these smaller farms.
    By limiting what produce is grown to a just a handful of different 
fruits, vegetables, and grains, and by specializing in only one strain 
of each, we are leaving ourselves in a precarious situation, setting 
ourselves up for disaster when a shift in the weather or an insect or a 
new disease can wipe out that entire species.
                                 ______
                                 
                      Comment of Heather Mazeroll
    Date Submitted: Friday, May 18, 2012, 4:34 p.m.
    City, State: Augusta, ME
    Occupation: Stay-at-Home Mom
    Comment: Please support the organic farming industry. Our lives 
depend on it. The thought of any more harmful and unnecessary 
pesticides continuing to be allowed to be used on what is suppose to be 
natural, healthy food is dangerous and frightening.
                                 ______
                                 
                       Comment of Deb Mazzaferro
    Date Submitted: Sunday, May 20, 2012, 7:39 a.m.
    City, State: Sarasota, FL
    Occupation: Consultant-Specialty Foods
    Comment: I believe all subsidies to agricultural businesses doing 
over $1,000,000 in revenue per year should end.
    We should reward farmers with tax rebates for using renewable 
energy, for protecting the environment (by not polluting) and for 
creating jobs with a living wage (a minimum of $40,000/year).
    We should also police existing food safety issues more heavily, 
especially in meat, chicken and produce producers.
                                 ______
                                 
             Comment of John Mazzitello, M.S.W., L.I.C.S.W.
    Date Submitted: Tuesday, April 03, 2012, 1:09 p.m.
    City, State: St. Cloud, MN
    Occupation: Clinical Program Therapist 4, DOC
    Comment: Dear Senators Klobachar and Franken:

    I work as a therapist in Stearns County and Chisago County State 
Prisons and strongly urge you to support existing funding levels for 
the Supplemental Nutrition Assistance Program (SNAP) within the farm 
bill.
    One in 9 Minnesota citizens struggles to put food on the table. In 
Stearns County at least 20 percent of the population is food insecure. 
SNAP is critical to maintaining good nutrition and health among our 
population. Since 2008, SNAP's caseload has risen in the face of the 
on-going recession.
    Economic studies in Minnesota show that people who lack access to 
adequate nutrition are more often chronically ill; children don't fully 
develop physically and cognitively and are more prone to fail courses, 
repeat grades and drop out of school before graduation which often 
leads to criminal activities on the street. The cost of hunger's 
impact--also as uninsured medical care--is conservatively estimated at 
$1.6 billion annually. Cutting SNAP or limiting access to it will 
increase charity care caseloads for the counties, which will be borne 
by local property taxes.
    Last but not least, every dollar of SNAP purchases goes into the 
local economy and generates $1.73 in economic activity. This is not a 
net expense; it is a net gain of 73% that supports jobs on Main Street. 
In a time of high unemployment, we cannot afford to add to the 
unemployed by reducing community economic assets of which SNAP is one.
    As a constituent and as a public servant, I strongly oppose cuts to 
critical anti-hunger programs SNAP, TEFAP as well as the Commodity 
Supplemental Food Program (CSFP) for seniors and Women, Infants and 
Children (WIC)
    For the sake of our neighbors who can't earn enough to get the food 
they need, it is important to maintain funding for programs that 
provide basic food assistance programs.
            Sincerely,

John Allan Mazzitello, M.S.W., L.I.C.S.W.,
Clinical Program Therapist 4,
Release and Reintegration Specialist,
Dept. of Corrections, St. Cloud and Rush City Prisons.
                                 ______
                                 
                        Comment of Gloria McAdam
    Date Submitted: Thursday, May 03, 2012, 11:52 a.m.
    City, State: Windsor, CT
    Occupation: Executive
    Comment: It is critical that the farm bill protect the programs 
like SNAP and TEFAP which provide the food that helps people in need 
survive and thrive. And the need remains high despite a slightly 
improved economy. Here in Connecticut, even though it's a wealthy 
state, 1 in 8 of our residents rely on private charities for part of 
their food needs.
    But private charities cannot do this alone! Currently in CT, only 
about 6% of the food given to people in need comes from private 
charities, the balance is from Federal nutrition programs like SNAP and 
TEFAP. Yet still, all of the needs are not being met. We estimate that 
the private charities only meet about \1/2\ of the needs that are over 
and above what the Federal programs provide. Cuts to Federal nutrition 
programs will just put us that much further behind!
    SNAP and TEFAP are some of the most efficient and effective 
programs the Federal government provides, with most benefits going to 
children, seniors, and disabled people.
    Investing in hunger-relief is an investment in the future health 
and education of our citizenry and workforce. Kids who are not hungry 
will do better in school. Adults who are not hungry will be better able 
to find and hold a job.
    Pass a Farm bill that protects and strengthens SNAP and TEFAP.
                                 ______
                                 
                     Comment of Dr. Philip McAndrew
    Date Submitted: Monday, May 14, 2012, 3:05 p.m.
    City, State: Oak Park, IL
    Occupation: Physician
    Comment: Please support food for the hungry in the next farm bill. 
I volunteer for the food pantry in Oak Park and there is a tremendous 
need for food for the food insecure.
            Thanks,

Dr. Phil McAndrew.
                                 ______
                                 
                        Comment of Kris McArthur
    Date Submitted: Friday, May 11, 2012, 4:34 p.m.
    City, State: Lynnwood, WA
    Occupation: Environmental Engineer
    Comment: I want America to produce healthy, organic, sustainable, 
non-GMO food. I want to invest in local farmers and ranchers, and 
preserving habitat. I want to see soil, air, groundwater, surface 
waters and marine waters all protected for future generations use and 
ecological benefit. I want to see a nation that eats healthy, lowering 
insurance costs, lowering medical costs, increasing lifespans and 
generally increasing America's (and the worlds) ability to live 
healthy, productive, joyful lives.
    I want this for our today, our tomorrow, and for the future beyond 
all of our finite lives.
                                 ______
                                 
                      Comment of Cynthia McAuliffe
    Date Submitted: Friday, May 18, 2012, 12:57 p.m.
    City, State: Saint Augustine, FL
    Occupation: Retired
    Comment:

    (1) Please reinstate $4 million for organic farming and reinstate 
        full funding for ``Beginning farmers''.

    (2) Please place limitations on crop insurance subsidies and re-
        attach soil erosion and wetland conservation requirements to 
        crop insurance programs.

    Protect our environment first and foremost.
                                 ______
                                 
                        Comment of Lynne McBride
    Date Submitted: Sunday, May 20, 2012, 10:37 a.m.
    City, State: Lafayette, CA
    Occupation: Executive Director, California Dairy Campaign
    Comment: If the dairy support purchase program is eliminated, as 
called for under both the House and Senate farm bills, dairy producers 
will have little ability to negotiate a fair price for the milk they 
produce and there will be even less competition than the limited 
competition that exists today. Without an adequate price safety net, 
producers will be forced into forward contracts, which will increase 
consolidation of the dairy industry, lower prices paid to producers and 
significant numbers of producers will be forced out of business as 
processors dictate forward contracting terms.
    The dairy inventory management program in both the House and Senate 
bills would penalize all producers regardless of whether they have 
increased production or not. The Senate bill will allow dairy operation 
to update is production base for the supplemental insurance lessoning 
the effectiveness of the inventory management program in the bill. We 
strongly support the legislation you introduced, ``The Dairy Price 
Stabilization Act'' which would establish an inventory management 
program to balance milk supply with market demand. Instead of 
penalizing producers the ``Dairy Price Stabilization Act'' would 
provide financial incentives for producers to manage their growth.
    Two recent analysis of the Senate passed dairy title provide the 
necessary economic data to show that the bill would need to be improved 
substantially in order to be effective in California. The Food and 
Agriculture Policy Research Institute (FAPRI) study concludes that in 
just 5 years, dairy producers will likely be asked to pay 23 cents per 
hundredweight for margin insurance and receive just 15 cents in return, 
a losing proposition. The analysis completed by Mark Stephenson at the 
University of Wisconsin and Andrew Novakovic of Cornell University 
concluded that the decrease in the feed cost calculation by 10 percent 
in the Senate bill will have a substantial impact on the program and 
make it even less likely that the margin insurance program will be 
activated in the future.
    An increasing number of dairy farms throughout California are going 
out of business or on the brink of bankruptcy due to low producer 
prices that do not cover rising production costs. The next dairy title 
must provide an effective safety net for periods of chronic low prices 
such as today and establish an inventory management system as outlined 
in the ``The Dairy Price Stabilization Act'' that is fair to all 
producers. We call on lawmakers to support elements included in the 
``Federal Milk Marketing Order Improvement Act'' S.1640 introduced by 
Senator Bob Casey, D-Penn. S. 1640 which would pay dairy producers 
based upon their cost of production, manage milk inventories to meet 
market demand and address the impact of unregulated concentrated dairy 
imports which are now on the rise. We look forward to working with you 
and your staff to reform Federal dairy policies so that dairy producer 
can receive a fair return for the milk they produce.
                                 ______
                                 
                         Comment of M. McBride
    Date Submitted: Friday, May 18, 2012, 3:21 p.m.
    City, State: Atlanta, GA
    Comment: More affordable organics, grass fed beef and natural pork. 
All GMO food must be labeled! Quit expecting us to eat crap so large 
companies can make absurd profits. Quit subsidizing tobacco and large 
corps. Support the small farmers. Stop animal cruelty!
                                 ______
                                 
                      Comment of Virginia McBride
    Date Submitted: Friday, May 18, 2012, 10:40 p.m.
    City, State: St. Paul, MN
    Occupation: Retail Manager and Parent
    Comment: We must have a bill that encourages and supports organic 
farming practices and small farms. Furthermore, we should not be 
enabling or subsidizing chemical use or big agriculture? I think it is 
a big mistake to allow GMO crops to continue. It is destructive to 
soil, water, human and animal health.
                                 ______
                                 
                         Comment of Jeff McCabe
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Ann Arbor, MI
    Occupation: Hoophouse Manufacturer and Installer
    Comment: We have a historic chance to break from the status quo and 
support programs, through the farm bill, that will improve the health 
of farmers, Americans, and the economy. Please, cut subsidies to 
commodity crops that are simply making corporations and Americans fat 
and invest in programs that produce fresh foods that people eat: EQIP, 
Beginning Farmer and Rancher, etc. We must act now to re-direct farming 
to grow healthy foods before we bankrupt our country with diabetes 
treatment for 50% of our population. We have an amazing cadre of young 
farmers that are eager to go in to business growing the food that we 
need. Please shift the incentives to this important new segment of 
farming, for all of our good.
                                 ______
                                 
                         Comment of Jody McCabe
    Date Submitted: Tuesday, May 15, 2012, 10:40 a.m.
    City, State: Rio, WV
    Producer/Non-producer: Producer
    Type: Fruits, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: I realize the committee has the difficult job of ensuring 
funding for various projects, but, as a farmer, I believe we need a 
farm bill that makes fresh, healthy, local, food available to all 
Americans, including schoolchildren. We also need to invest in the next 
generation of farmers and ranchers by guaranteeing the $25M per year in 
mandatory funding for the Beginning Farmer and Rancher Development 
Program to support and encourage beginning farmers and ranchers 
entering agriculture. The investment in Organic Agriculture Research 
and Extension Initiative at $30M per year is vital to continued 
productivity and innovation in growing and diverse sectors of American 
agriculture, such as organic agriculture, which I am a part of with my 
farm. Further, by keeping the Value-Added Producer Grants Program at 
$30M per year provides seed money to help farmers innovate in 
agriculture and create jobs while securing a sustainable path to 
market-based farm profitability. I believe America is at a pivotal 
point in time where it is of extreme importance to bring Americans back 
to organic and sustainable food products, and away from GMO, fat 
producing food processes, thus helping Americans become healthier and 
less obese. That can be accomplished by a better 2012 Food & Farm Bill 
that assists local farmers and ranchers in helping all Americans.
    Thank you for your consideration.
                                 ______
                                 
                       Comment of Michelle McCabe
    Date Submitted: Saturday, May 19, 2012, 7:25 a.m.
    City, State: Fairfield, CT
    Occupation: Research Assistant, Public Policy
    Comment: Divert subsidies for corn and soy to support local food 
sheds, fruit and vegetable crops, research and development, humane 
animal raising and slaughter.
                                 ______
                                 
                       Comment of Marie McCaffrey
    Date Submitted: Friday, May 18, 2012, 12:52 p.m.
    City, State: Landenberg, DE
    Occupation: Web Designer
    Comment: I know that the squeaky wheel gets the grease but U.S. 
food and agricultural policy Must focus on adopting best agricultural 
practices that put the health of its citizens, the land and the 
livelihood of farmers over the interests of industrial agriculture 
lobbyists.
    I am FOR:

    1. GMO Labeling

    2. Free Speech being reinstated regarding the health benefits of 
        food and which foods best fight specific diseases. Foods must 
        not be allowed to be classified as drugs just because they can 
        have the same effect. It's just wrong.

    3. Placing the burden of proof on the government before censorship 
        is allowed . . . Stripping the FDA of its power to regulate 
        free speech as it pertains to the above . . . and of its powers 
        of search and seize without a warrant.

    4. Getting Government out of the marketplace and allowing free-
        enterprise and honest competition to reign. No more favoring 
        big Agra. Leave the Amish alone. Get out of the raw milk 
        debate. Label it and allow the American public to decide what's 
        on their dinner plate.

    5. A cessation of copyright lawsuits from Monsanto regarding their 
        seeds blowing into organic farmers' fields. This ruins the 
        field and creates hardship for organic farmers. Companies 
        should be required to pay organic farmers for the land that 
        becomes infected with GMO seeds.
                                 ______
                                 
                       Comment of Audrey McCague
    Date Submitted: Friday, May 18, 2012, 12:44 p.m.
    City, State: Royse City, TX
    Occupation: Oil Industry
    Comment: The purity of our food and protecting our farmers is first 
and foremost. Big companies must not be allowed to harass our farmers 
with bogus lawsuits and they must not be allowed to produce GMO food 
that is not labeled as GMO or any other unnatural process or 
ingredients. They must not be allowed to monopolize. There must be fair 
and equal treatment.
    Thank you.
                                 ______
                                 
                    Comment of Nancy McCammon-Hansen
    Date Submitted: Sunday, May 20, 2012, 7:19 p.m.
    City, State: Fort Wayne, IN
    Occupation: Marketing Coordinator at the History Center
    Comment: As convener of the Fort Wayne area League of Women Voters, 
I personally support the state League's position on the farm bill in 
regard to SNAP.
    The FY 2013 Agriculture Appropriations bill should:

  <bullet> Oppose funding cuts and harmful policy proposals to SNAP, 
        including efforts to block grant, cap, or cut funding;

  <bullet> impose restrictive work requirements; or otherwise reduce 
        benefits or restrict participation.

    The 2012 Farm Bill should:

  <bullet> Maintain funding to support current eligibility and benefit 
        levels and oppose harmful policy changes.

    Thank you!
                                 ______
                                 
                        Comment of Annika McCann
    Date Submitted: Friday, May 18, 2012, 2:24 p.m.
    City, State: St. Johnsbury, VT
    Occupation: Registered Nurse
    Comment: Please increase funding for small family farms, farmers 
markets, and sustainable/organic practices. Please reduce subsidies to 
big corn and soy producers; these crops are used to make processed 
foods which harm the health of citizens. I support Local Foods, Farms 
and Jobs Act (H.R. 3286).
                                 ______
                                 
                        Comment of Sheri McCann
    Date Submitted: Sunday, May 20, 2012, 4:30 p.m.
    City, State: Marshalltown, IA
    Occupation: Controller
    Comment: Please create a bill that allows my granddaughter to 
receive health meals in school. One that is based on a sustainable, 
chemical-free future.
                                 ______
                                 
                        Comment of Andy McCarron
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Keene, NH
    Occupation: Mechanical Engineer
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    The current agricultural subsidization leads to mass production of 
``cash crop'' (ex. corn) grown with chemicals and without regard for 
the conservation of land on which it is grown, typically grown on large 
mega farms. This type of farming results in more pollution (more 
chemicals are made, transportation of goods, operation of machinery, 
etc.), and crops (specifically corn) are driving health care cost up 
(look at the obesity rates resulting from an excess of corn intake in 
most Americans). The government needs to take care of its people--and 
corporation are not people (I don't care what the supreme court says 
about that).
                                 ______
                                 
                      Comment of Maureen McCarter
    Date Submitted: Sunday, May 20, 2012, 11:54 p.m.
    City, State: St. Cloud, MN
    Occupation: Teacher
    Comment: Our policies should support family farms, not corporate 
giants. Stop subsidizing corn and start subsidizing foods that are 
healthier for Americans, including vegetables. Reward farmers who use 
little or no pesticides. Stop Monsanto from taking complete control of 
the seed market. Stop CAFOs.
                                 ______
                                 
                        Comment of Caly McCarthy
    Date Submitted: Friday, May 18, 2012, 7:41 p.m.
    City, State: Port Murray, NJ
    Occupation: High-School Student
    Comment: The farm bill has great potential to help those who honor 
the Earth: small-scale, organic farmers. We must Stop pouring money 
into agro-businesses which profit off the demise of the Earth and those 
who inhabit it (animals, plants, and humans). The farm bill should 
support diverse farms that follow traditional practices of crop 
rotation and seed saving. What with GMOs, pesticides, fertilizers, and 
oil-intensive agriculture, our food system is great peril. We have an 
obligation to protect consumers, but even more importantly, the Earth 
from which all life comes.
    Please use the power entrusted in you to honor the Earth!
                                 ______
                                 
                       Comment of James McCarthy
    Date Submitted: Friday, May 18, 2012, 9:54 a.m.
    City, State: Fort Myers, FL
    Comment: Less funding for huge farming companies. Make sure food 
stamps stay in the Bill. More money for urban, small and black farms. 
Real food not generic corn.
                                 ______
                                 
                      Comment of Suzanne McCarthy
    Date Submitted: Friday, May 18, 2012, 9:28 p.m.
    City, State: Port Murray, NJ
    Occupation: College Academic Advisor
    Comment: I wish to see support for local, non GMO agriculture. 
Please provide support for farm preservation and support for those you 
want to be part of a sustainable food system. Feedlots and mono-
cultures are destroying our environment and ultimately our food supply.
                                 ______
                                 
                        Comment of Kim McCartney
    Date Submitted: Friday, May 18, 2012, 4:17 p.m.
    City, State: Santa Rosa, CA
    Occupation: Engineering Professor
    Comment: We know now that durable, resilient action plans are the 
only option offering life-sustaining potential for the common good of 
humanity. What species would willfully eliminate itself? And yet, if we 
continue in the same delusional mind set, this is what we would do. 
Please act in time.
                                 ______
                                 
                      Comment of Rachel McCausland
    Date Submitted: Friday, May 18, 2012, 6:13 p.m.
    City, State: Bellingham, WA
    Occupation: Art Team at Premier Graphics
    Comment: Since the way our food is produced affects everyone, I'm 
glad for this opportunity to share what I think is most important.
    We need to focus on healthy and organic plant foods. The production 
of organic plant foods is more ecologically sound in a lot of ways. It 
takes less water and land to produce plant foods than livestock or eggs 
or poultry, and if the plant foods are grown organically there is far 
less toxicity to the food. With commercial animal agriculture, grain 
and corn must be grown to feed the animals, and the animals create a 
great deal of waste which is very polluting to the environment, never 
mind the antibiotics and hormones which are routinely fed to the 
animals and which help encourage the development of antibiotic-
resistant illnesses. Livestock also create a lot of CO<INF>2</INF> 
emissions.
    Please find ways to encourage and support the growth of healthy and 
organic plant foods so that our air, water, land, and food, can be free 
of harmful chemicals and pesticides. Invest in more local farms and 
find a way to discourage outsourcing. Emphasize the dignity of the 
farmer, the producer.
                                 ______
                                 
                       Comment of Larry McChesney
    Date Submitted: Friday, May 18, 2012, 12:26 p.m.
    City, State: Warren, CT
    Occupation: Retired
    Comment: Let's give people first thought rather than corporations. 
Corporations don't vote. People DO, and we will! Do what is right and 
what the majority of folks want, not what will line your own pockets 
fastest.
                                 ______
                                 
                        Comment of Mikel McClain
    Date Submitted: Tuesday, May 15, 2012, 7:12 p.m.
    City, State: Portland, OR
    Occupation: Retired Clergy
    Comment: Please don't stop SNAP! I help a family of three who needs 
all the food stamps possible. This working mother has two teenage boys 
with hearty appetites. The $142 a month does not currently cover all 
the food costs, but things would be a lot worse without it or if it is 
reduced.
                                 ______
                                 
                       Comment of Lois M. McClave
    Date Submitted: Friday, May 18, 2012, 12:59 p.m.
    City, State: Albuquerque, NM
    Occupation: Registered Nurse
    Comment: Please support local farmers AND provide subsidies for 
fruits and vegetables.
    I do Not want further subsidies for CORN and SOY because most of 
those products are from GMO seeds which have detrimental health 
benefits to the body (genetic material of bacteria and pesticides 
packed into the seed!)
    I want to be informed that the products I eat are not GMO and that 
as a nation we are feeding our children fruits and vegetables, not just 
products with high fructose corn syrup and other corn derivatives, 
which are cheaper because it is subsidized!
    I am appalled by factory farming and the horrible conditions 
animals are kept in. It is incredibly unhealthy and unjust.
    Please support local farmers and stop the big agricultural 
subsidies! We will not starve if you weigh in on the side of local 
farmers and healthy food! If anything it will reduce our health care 
costs from all the problems associated with obesity that itself is 
associated with corn derivatives in particular (how they affect 
appetite and have an addictive activating mechanism in the brain).
    Do the right thing! We really are what we eat!

Lois M. McClave,
1st District--Martin Heinrich.
                                 ______
                                 
                       Comment of Richard McClave
    Date Submitted: Saturday, May 19, 2012, 10:51 a.m.
    City, State: Albuquerque, NM
    Occupation: Dentist
    Comment: Please put some incentives in this farm bill to encourage 
the growth of local and organic producers. Both small, local and big, 
corporate farms have a place in our world.
                                 ______
                                 
                        Comment of Robin McClave
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: Columbia, MD
    Occupation: Public Health
    Comment: I would like the farm bill to give greater consideration 
to the quality of foods produced and the subsidies that support 
specific commodities. The farm bill is not just about food, it is about 
the health of our nation. Food is the currency that connects us all and 
will allow America to grow strong both economically and culturally. 
Though certain investments seem to be larger on the front end, they 
inevitably cover their costs on the back end. This is a pivotal time in 
the history of American health. If our congressional representatives do 
not look at this from the long-term perspective of the health of 
current and future generations, you will be costing America any chance 
it has at taking care of its citizens and providing a healthy future.
                                 ______
                                 
                        Comment of Scott McClave
    Date Submitted: Friday, May 18, 2012, 3:04 p.m.
    City, State: Costa Mesa, CA
    Occupation: Insurance Consultant
    Comment: Get rid of farm subsidies. This is just pure silliness and 
archaic. Control the problem of excessively cheap imported ag by 
tariffs, but quit wasting taxpayer money on subsidizing our own farms. 
Let competition have its way and let voters vote by making choices at 
the grocery store instead of government thinking they know what's best.
                                 ______
                                 
                        Comment of Jeff McCleave
    Date Submitted: Sunday, March 18, 2012, 2:21 p.m.
    City, State: Olney, IL
    Occupation: Retired
    Comment: Please don't use poor people as a political football when 
acting on this bill. Their already has been used in ads calling Obama 
the food stamp president. If not for the safety net we would be calling 
him the starvation president. Kicking the poor people is easy they 
don't have lobbyists looking out for them. That's what the elected 
Representatives used to do now they are for sale to the highest bidder.
                                 ______
                                 
                      Comment of Michael McClellan
    Date Submitted: Friday, May 11, 2012, 2:12 p.m.
    City, State: Bowling Green, KY
    Occupation: Government
    Comment: Honorable Mr. Guthrie,

    As a Kentuckian and health-conscious American from a rural 
background, I am very concerned about the state of America's 
agriculture on many levels, not the least of which are the following:

    (a) sustainability of rural communities

    (b) sustainability of our soils and farmland

    (c) availability of organic meats and produce at prices all can 
        afford

    (d) viability of small farms for local markets in the face of 
        unrelenting pressures from industrial ag companies

    (e) non-interference by the Federal government with the work of 
        small farmers who are working on smaller scales and catering to 
        local markets.

    Please ensure that the upcoming farm bill reflects policies that 
will promote small farms, local food production, organic agriculture 
(REAL organics, not the pseudo-organics of Monsanto and other large ag 
concerns), and the sustainability of rural communities. A good farm 
bill will create many ``jobs'' by promoting the small business of 
farming, improve the nation's health with better quality foods, and 
help our environment by improving our soils, using more solar energy 
the natural way, and reducing our dependence on chemicals and 
artificial inputs.
    We need your support! The family farm depends on it! Thanks.

Michael McClellan.
                                 ______
                                 
                     Comment of Frances McClelland
    Date Submitted: Saturday, May 19, 2012, 11:55 p.m.
    City, State: Ojai, CA
    Occupation: Retired-Biointesive Gardener at our Church
    Comment: I help grow food for the hungry in Ojai by using some of 
the land at our church, St. Andrew's Episcopal Church in Ojai, CA to 
grow food for the Community Assistance Program. I felt that it was 
wrong to use our land and water for grass and trees only. I would like 
to see all common land used to grow food but it is a lot of work and 
people are not aware of what they could have. We grow organic and 
``Biointensively'' which is very good use of the space.

Franna McClelland.
                                 ______
                                 
                       Comment of B.A. McClintock
    Date Submitted: Friday, May 18, 2012, 12:27 p.m.
    City, State: Honolulu, HI
    Occupation: Disabled with MCS
    Comment: Because I and millions of others world-wide are disabled 
with MCS we rely on you, our government, to protect us, especially our 
food & water supply. More & more chemicals are being added into our 
environment and on our food & water. For us this is tantamount to 
murder. If our food is contaminated and we have a reaction to it, we 
can die, plain and simple. We look to you to help us. The farm bill is 
the first important step to doing so. Everyone deserves healthy foods.
                                 ______
                                 
                Joint Comment of Sue and Brian McCluskey
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: Carbonado, WA
    Occupation: Retired
    Comment: I don't think that huge agribusiness is the way to grow 
healthy food for America. As a onetime dairy farm operator we know that 
if 1 or 2 dairies bought up all the family owned farms we would have 
costs the only concern. I resent tax dollars going to large 
corporations while they lower the quality of our foods and fill the 
environment with pesticides, herbicides and other chemicals. Help the 
small farmer not big agribusiness.
                                 ______
                                 
                       Comment of Karl McConnell
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Whitefish, MT
    Occupation: Disabled
    Comment: Please put the health and safety of American consumers 
over the financial interests of big ag. I am 24 and have spent almost 
\1/2\ my life extremely ill with an inflammatory bowel disorder and 
food allergies, and GMO foods cause allergic reaction and pain and 
inflammation even if they are ``safe'' foods for me. Please don't 
condemn people like me to a worse more painful life than we already 
have by allowing GMOs to continue polluting our organic food sources.
                                 ______
                                 
                       Comment of Melissa McCool
    Date Submitted: Sunday, May 20, 2012, 5:39 p.m.
    City, State: Selah, WA
    Occupation: Self-Employed
    Comment: I support the following and hope you will consider these 
points:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    The Senate Ag Committee has voted to get rid of wasteful subsidy 
payments, and it has proposed to replace it with a new subsidized 
insurance program that leading sustainable agriculture advocates are 
calling rife with opportunities for fraud and abuse.
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    According to the National Sustainable Agriculture Coalition's Ferd 
Hoefner, ``By failing to place limitations on crop insurance subsidies 
and to re-attach soil erosion and wetland conservation requirements to 
crop insurance programs, the Committee has failed to do the full reform 
that is needed''.
    Thank you for your consideration.
            Most sincerely,

Melissa McCool.
                                 ______
                                 
                        Comment of Kim McCormack
    Date Submitted: Friday, May 18, 2012, 6:32 p.m.
    City, State: Boulder, CO
    Occupation: Nutrition Consultant
    Comment: The farming practices being promoted and used nationwide 
are unsustainable. Not only that, they are undermining the general 
health of our nations people. There must be a substantial shift away 
from the use of hormones, pesticides, animal cruelty and genetic 
modifications if we are going to heal ourselves and our agriculture.
                                 ______
                                 
                       Comment of Sarah McCormick
    Date Submitted: Thursday, May 10, 2012, 2:19 p.m.
    City, State: Loveland OH
    Occupation: Research Consultant
    Comment: Cutting assistance to food-insecure families is not the 
answer to our budget crisis. Reductions in benefits would hit nearly 
all of the 44 million Americans (more than 10% of our fellow citizens!) 
who receive SNAP benefits. It is not right to balance our budget on the 
backs of children and elderly, who make up more than 90% of SNAP 
recipients. As well, the purchasing power that SNAP benefits provide to 
the rest of the economy will further hurt our financial situation as a 
country. Please strengthen the SNAP program, don't undermine it.
                                 ______
                                 
                      Comment of Gloria McCracken
    Date Submitted: Sunday, May 20, 2012, 3:44 p.m.
    City, State: Chiloquin, OR
    Occupation: Student
    Comment: If we're really serious about debt, we don't need to make 
those with less pay for the tax benefits those with so much get. We 
can't afford to cut benefits for the SNAP program. We're talking about 
children who will be adults, and hopefully they'll be healthy, and 
therefore not a drain on society, but this cannot happen if they don't 
have access to food! A fundamental idea, I admit, but one that seems 
beyond many individuals in Congress.
    In addition, Congress should include the following in any bill that 
is supposed to help agriculture:

  <bullet> Community Food Projects Program--$10 million per year to 
        help communities build food self-reliance.

  <bullet> Farmers Market and Local Food Promotion Program--$20 million 
        per year to develop farmers market capacity and create food 
        hubs to connect farmers with schools, hospitals, grocery stores 
        and other markets.

  <bullet> Hunger-Free Community Incentive Grants--An average of $20 
        million per year for a new SNAP local fruit and vegetable 
        incentive grant program at farmers markets and other healthy 
        food retailers.
                                 ______
                                 
                       Comment of Grant McCracken
    Date Submitted: Friday, May 18, 2012, 11:40 a.m.
    City, State: Cincinnati, OH
    Occupation: Brewer
    Comment: I would like the farm bill to reflect my family's beliefs 
in good, clean and fair food. Stop subsidization of food that is making 
my family and planet sick. GMO/non-GMO should be a required label on 
every food. We should be testing these GMOs for long term implications 
and not relying on the producers of pesticides etc., to provide their 
own findings (short term). Colony collapse in bees has been noted by 
Harvard as a direct link to an imidacloprid pesticide and should be 
banned to prevent the destruction of our country's natural pollinators. 
Please change our system for the better, not for the giant companies 
like Monsanto and Dow, who's best interest is to keep producing these 
toxic chemicals.
                                 ______
                                 
                       Comment of Connie McCullah
    Date Submitted: Friday, May 18, 2012, 3:24 p.m.
    City, State: Berkeley, CA
    Occupation: Project Manager, Food Explorer Program and Farmers' 
Market Education
    Comment: It is imperative that you ensure a secure, healthy and 
safe local food supply that supports local regionally grown food versus 
agrafarming and central distribution. That truth in labeling is 
required and people are empowered to make their own health decisions. 
This has truly become an issue of national security! The power to feed 
our local communities with locally grown food, secures a more healthy 
future for our population and our communities.
                                 ______
                                 
                       Comment of Dennis McCullah
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Berkeley, CA
    Occupation: Facilities
    Comment: Please pay attention to the small organic farmer and the 
health of our children. We have a right to know if our food is a GMO. 
We should have the right to choose what we eat and drink. It is time 
that we do not support greed over health and education. We need to pay 
attention to our children.
                                 ______
                                 
                       Comment of Karen McCulley
    Date Submitted: Saturday, May 19, 2012, 1:01 p.m.
    City, State: Laguna Beach, CA
    Occupation: Retired Landscape Architect and Banker
    Comment: Please support truth in labeling foods so that we, the 
consumers and your constituents, know if GMO foods are in the products. 
Such legislation is common in Europe and hasn't harmed their economy, 
but rather made corporations responsive to their consumers. Please do 
not cave--like VT and CT--to the litigious corporations and PAC's like 
Monsanto and put your constituents needs first. Thank you.
                                 ______
                                 
                      Comment of Martha McCulloch
    Date Submitted: Saturday, May 19, 2012, 9:10 a.m.
    City, State: Gardiner, NY
    Occupation: Self-Employed
    Comment: Our food subsidy program up to now has only served to 
increase the profits of the large industrial farming operations, with 
dire results for public health and nutrition. Now is the time to 
support sustainable agriculture and small, independent farmers who 
produce healthy food with humane and sustainable methods.
                                 ______
                                 
                        Comment of Abbi McDaniel
    Date Submitted: Friday, May 18, 2012, 10:13 p.m.
    City, State: Newburgh, IN
    Occupation: Homemaker
    Comment: I want to know that my family is getting the best 
nutrition possible. Every day I learn more and more how our current 
model of agriculture is doing nothing to improve the health of the 
people. We need to get back to the best way to raise crops and feed our 
families.
                                 ______
                                 
                      Comment of Colleen McDaniel
    Date Submitted: Friday, May 18, 2012, 11:10 a.m.
    City, State: Kannapolis, NC
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: I have participated in an Incubator Farm program with 
Cabarrus county and will take the skills I have learned there to begin 
a small farm operation. Though it is difficult to enter this as an 
occupation, I have found that markets are demanding sustainable, 
organic produce, meat and poultry. People want to know their farmer 
personally. I am also a member of the Food Policy Council of Cabarrus 
County and we see the absolute need for healthier food in our schools. 
This means we, as a society must ensure that healthy foods are more 
competitively priced so that schools can afford them. Subsidies for non 
sustainable agriculture must be diminished, i.e., GMO corn, GMO soy, 
GMO cotton, and other subsidized products that encourage herbicide and 
pesticide use that is now at an all time high worldwide. This farming 
is not sustainable and our health suffers from eating these products 
with chemical (and sometimes biological as in BT corn) inputs, the 
healthy microbes in our soil suffer, the skills of farming more than a 
handful of items is nearly wiped out as the average farmer is nearing 
60 years old and with 2% of the U.S. population farming, this means we 
have very few educated farmers to take their place. Mono crops should 
become a thing of the past as we look to sustainability and we must re-
learn how to work with nature in a balance of plant animal and microbe 
to create a healthier future.
                                 ______
                                 
                      Comment of Pamela McDermott
    Date Submitted: Friday, May 18, 2012, 7:00 p.m.
    City, State: Colorado Springs, CO
    Occupation: Educator
    Comment: Organic GMO-free small farm agriculture is a better 
investment than big corporate GMO-filled agriculture, and agricultural 
subsidies should reflect that but they currently do not. The FDA and 
USDA, charged with regulating the agricultural sector, are also failing 
to enforce the agricultural laws we already have and all too often side 
with the interests of big corporate agriculture instead of holding them 
accountable for dangers to public health, watershed pollution, 
destruction of living soil (it's dead now), and their dependence on 
fossil fuels leaving a huge carbon footprint. GMO pollen is an 
environmental pollutant that can devastate neighboring organic farms; 
pollen drift can cause an organic farmer to lose organic certification, 
forcing that farmer to desist from farming for at least 3 years before 
becoming eligible for recertification (providing his or her farm is not 
continuously polluted by GMO pollen drift) and I think they deserve to 
be financially compensated for the entirety of that process by the 
polluter(s) around them. There are so many issues in agriculture that I 
could point to that are harming our lands, waters, air, food system, 
economy, and the future of our country. I call on the Agriculture 
Committee and all Congressmen to educate themselves on the issues (free 
of corporate ag propaganda and marketing).
                                 ______
                                 
                     Comment of Margaret McDonnell
    Date Submitted: Saturday, May 19, 2012, 2:18 p.m.
    City, State: Bettendorf, IA
    Occupation: Exec. Assistant
    Comment: Elected representatives job is to see that his/her 
constituents are provided the best possible opportunities. It is Not to 
support a few large businesses. Natural, organic, farming practices 
support a cleaner environment for our families. And locally produced 
food is allowed to mature in the field and is not artificially ripened, 
hence is healthier. Also local food sources support local economy and 
can reach the consumer without subsidized transportation. It is a win 
win for all but chemical and oil companies who like you to assist them 
in building their monopolies. America was not formed to support 
monopolies.
                                 ______
                                 
                       Comment of Miriam McFadden
    Date Submitted: Friday, May 18, 2012, 9:49 p.m.
    City, State: Waverly, NE
    Occupation: Retired
    Comment: Please read the following and others you can find by 
googling ``obesogens'': http://www.doctoroz.com/videos/understanding-
obesogens
    Our current mega farmers assisted by companies like Monsanto, are 
killing us! Please write a farm bill that will assist organic farmers, 
will get healthy and safe foods into our schools, and will eliminate 
poisons from our food and water systems.
                                 ______
                                 
                       Comment of Steven McFadden
    Date Submitted: Friday, May 18, 2012, 12:57 p.m.
    City, State: Lincoln, NE
    Comment: Dear House Agriculture Committee--I urge you to support 
and to fund the sustainable, organic pathways to food production that 
are the true `tradition' of American Agriculture, and to cease support 
of the kind of industrial agriculture that has dispossessed so many 
American farm families and caused so much environmental destruction, 
and serious chronic health problems.
    I urge Congress to support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
            Sincerely,

Steven McFadden.
                                 ______
                                 
                        Comment of Pat McFarland
    Date Submitted: Saturday, May 19, 2012, 11:07 a.m.
    City, State: Point Arena, CA
    Occupation: Horse Rancher
    Comment: Don't let corporate agribusiness highjack the farm bill! 
Endorse Local Foods, Farms and Jobs H.R. 3286. Implement all provisions 
of the Beginning Farmers and Ranchers Opportunity Act H.R. 3236. 
Increase funding for Organic Research and Sustainable Agriculture. 
Don't let your constituents go hungry, support existing food stamp 
program. Stay out of the insurance business. Stop subsidizing 
profitable agribusiness. Maintain strict soil erosion and wetland 
conservation requirements. LABEL genetically modified foods and STOP 
supporting Any farmer or corporation that is promoting them.
                                 ______
                                 
                       Comment of Melissa McGill
    Date Submitted: Friday, May 18, 2012, 1:48 p.m.
    City, State: Las Vegas, NV
    Occupation: Commercial Illustrator
    Comment: If we would subsidize sustainable food production and 
organic foods we would have a healthier population with lower food 
related illnesses. Without constant spraying of chemical pesticides we 
would have lower rates of Cancer, ADD and Autism. Food is supposed to 
nourish and provide health, not just for those who can afford organics. 
We now have food that Causes illness. You have the opportunity to make 
a huge difference in the quality of life of many by providing low cost, 
healthy, whole food for the people whose interests you have pledged to 
serve.
                                 ______
                                 
                       Comment of M. McGillivary
    Date Submitted: Friday, May 18, 2012, 3:30 p.m.
    City, State: Eugene, OR
    Occupation: Self-Employed
    Comment: My ancestors were Farmers & they would be and I am 
appalled at the Animal Cruelty, Drugs, Crates, Torture, Doped Up 
Animals Making Us All Fat & Unhealthy, Genetic Fake Food, Cloning. 
Mankind Is A Mess for Messing With Animals & Agriculture . . . Down 
with Big Corporate Farming I have stopping eating at All Fast Food 
Restaurants & Regular Restaurants that are supplied by Tyson & others. 
My nose actually itches from some unknown ingredient Only when I eat in 
franchised restaurants that buy from Big Ag Corps . . . My family & I 
wonder What Are You Doing To Our Food Supply?
                                 ______
                                 
                      Comment of Kristine McGinley
    Date Submitted: Friday, May 18, 2012, 5:19 p.m.
    City, State: Ridgefield, WA
    Occupation: Manager of Boutique Wine Shop
    Comment: Nothing is more important than protecting the land that 
feeds the people of this country. Without proper nutrition we are all 
(democrat or republican) doomed to a life of poor health and chronic 
illness. This problem will only compound with each subsequent 
generation. We must take measures now to guarantee a healthy future for 
our country and the world.
                                 ______
                                 
                       Comment of Marie McGlashan
    Date Submitted: Friday, May 18, 2012, 11:47 p.m.
    City, State: Mill Valley CA
    Occupation: Mother/Acupuncturist
    Comment: We need to have our tax dollars go to help put healthy 
real whole food on our tables--No GMO's, No heavy synthetic 
fertilizers, No heavy pesticide use!
                                 ______
                                 
                       Comment of Richard McGlynn
    Date Submitted: Tuesday, March 20, 2012, 1:30 a.m.
    City, State: Chicago, IL
    Occupation: Retired
    Comment: I am in favor of cutting spending on agriculture and 
reversing the government takeover of this important segment of our 
economy. Let the farmers and ranchers decide for themselves without 
Washington's money or advice.
                                 ______
                                 
                      Comment of Katherine McGowan
    Date Submitted: Saturday, May 19, 2012, 7:18 a.m.
    City, State: Carmel, NY
    Occupation: Paralegal
    Comment: We need small local organic farms and safe food. Food that 
does not have BST growth hormone or food that is not genetically 
modified (GMO foods should be banned as it is in France). We need to 
ban the growing of crops with genetically modified seeds before the 
genetically modified seeds totally ruin heirloom or organic seeds. We 
need the FDA to protect the consumers not promote big business' 
unhealthy interests.
                                 ______
                                 
                        Comment of Laura McGowan
    Date Submitted: Friday, May 11, 2012, 4:18 p.m.
    City, State: Lothian, MD
    Occupation: Administrative Assistant/Retired Registered Nurse
    Comment: I would love to see more local, small farms that care 
about the animals, the land and water. Massive industrial farming is 
killing our planet with pesticides and misuse of land and water. I also 
no longer eat meat now because I refuse to be part of Any animal 
cruelty, and factory farming is notorious for cruelty, torture and 
inhumane treatment of animals who sacrifice their lives for humans. 
Unless we make a real commitment to making real changes to our present 
farming techniques, we can expect human overpopulation to destroy this 
precious and beautiful planet.
                                 ______
                                 
                    Comment of Elisabeth Ann McGrath
    Date Submitted: Sunday, May 20, 2012, 7:55 a.m.
    City, State: McArath, NJ
    Occupation: Teacher
    Comment: Please support farmers who produce our food supply. Do 
everything possible to enable them to grow what they produce in a 
healthy environment free of toxic chemicals while still allowing them 
to make a living. We cannot survive without the valuable contribution 
farmers make.
                                 ______
                                 
                      Comment of Michelle McGrath
    Date Submitted: Friday, May 18, 2012, 3:17 p.m.
    City, State: Underwood, WA
    Occupation: Agricultural Nonprofit
    Comment: I work with beginning farmers and ranchers and I see the 
importance of the farm bill on their livelihoods. Protecting programs 
that allow small, beginning farms access to resource is Vital. The 
majority of Federal programs are geared toward multigenerational mega-
farms. With the farming population `greying out'', supporting small 
family farms is not just economic sense, but homeland security for the 
future of our nation.
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                        Comment of Sarah McGraw
    Date Submitted: Saturday, May 19, 2012, 12:29 a.m.
    City, State: Owens Crossroads, AL
    Occupation: Electrical Engineer/Program Manager
    Comment: U.S. food and agricultural policy must focus on adopting 
best agricultural practices that put the health of its citizens, the 
land and the livelihood of farmers and farm workers over the interests 
of industrial agriculture lobbyists.
    Americans are becoming more obese and are eating food that has been 
rushed to market, thus contain fewer vitamins and minerals than organic 
foods. We are the only country that insists upon genetically altering 
everything from plants to fish for the sake of producing more for less 
money.
    We are being poisoned with pesticides, and our bodies are not as 
healthy as they could be because ``natural'' is no longer natural; it 
is altered in many ways. We are the only country that allows high 
fructose corn syrup in foods and beverages--therefore, I only buy 
Mexican Coca-Cola, Not American Coca-Cola! I only drink sodas that have 
real sugar; never diet sodas!
    Our animals are injected with hormones and antibiotics, even when 
they do not need them! Stop this practice, please.
                                 ______
                                 
                       Comment of Donna McGreevy
    Date Submitted: Friday, May 18, 2012, 4:15 p.m.
    City, State: Columbia, SC
    Occupation: Registered Nurse (Retired)
    Comment: We as a nation should be more concerned about the health 
of our citizens than the huge profits of the giant Ag corporations! 
Let's get some honest and forthright input from health care 
professionals in the mix before legislation is enacted that hurts our 
people and only help corporations Which Are Not People.
                                 ______
                                 
                       Comment of Molle McGregor
    Date Submitted: Friday, April 27, 2012, 3:01 p.m.
    City, State: Biltmore Lake, NC
    Occupation: Realtor
    Comment: Please consider the importance of small farmers and their 
needs as you write the next farm bill. Small farmers are a wonderful 
resource for their communities and should have their interests 
supported as much as the larger conglomerates.
    Thank you!
                                 ______
                                 
                   Comment of Donna-Christine McGuire
    Date Submitted: Sunday, May 20, 2012, 1:07 a.m.
    City, State: Santa Barbara, CA
    Occupation: Neuroscientist
    Comment: Please do all you can to encourage small, family farmers 
committed to feeding Americans organic food, using sustainable methods.
            Thank you,

    D.C. McGuire.
                                 ______
                                 
                        Comment of Mary McGuire
    Date Submitted: Sunday, May 20, 2012, 3:42 p.m.
    City, State: Wheat Ridge, CO
    Occupation: Herbalist and Nutritionist
    Comment: It's critical to main the EQIP Organic Initiative. And, we 
need to provide healthy, non-GMO foods for U.S. citizens which will cut 
down on healthcare costs. Additionally, the Food Stamp program is 
imperative for many of our citizens--streamlining the program and 
putting systems in place to detect and eliminate fraud is very 
important. Also, please implement all the provision of H.R. 3236.
                                 ______
                                 
                       Comment of Russell McGuire
    Date Submitted: Saturday, May 19, 2012, 4:39 a.m.
    City, State: Honolulu, HI
    Occupation: Restaurant Manager
    Comment: End all farm subsidies. Mandate GMO foods labeled as such. 
Free farmers from regulatory burdens that larger corporate farmers are 
able to afford. Allow dairy farmers to sell raw milk to willing buyers.
                                 ______
                                 
                        Comment of Sharon McHold
    Date Submitted: Thursday, May 17, 2012, 9:34 a.m.
    City, State: Yarmouth, ME
    Occupation: Mediator/Lawyer
    Comment: My land trust works to protect farm land so that local 
food production, which includes energy savings by avoiding long 
distance transportation. This bill will enable us to be much more 
effective.
                                 ______
                                 
                      Comments of Patricia McHugh
    Date Submitted: Friday, May 11, 2012, 3:07 p.m.
    City, State: Saint Louis, MO
    Occupation: Teacher, Retired
    Comment: New farm bill? Subsidize family farmers NOT agribusiness's 
profits from artificial oil-based fertilizers, pesticides & GMO seeds: 
Other Countries Forbid these to protest Health. Provide all of U.S. 
healthy, nutritious food. Ignore agribusiness's lobbyists. Thanks.
    Date Submitted: Friday, May 18, 2012 8:27 p.m.
    Comment: Support Family Farms and Not fat-cat agribusiness's 
obscene profits!
                                 ______
                                 
                       Comment of Rachael McIndoo
    Date Submitted: Friday, May 18, 2012, 4:04 p.m.
    City, State: Carbondale, IL
    Occupation: Student
    Comment: Make it mandatory to label foods that have GMOs and/or 
label foods that are non-GMO.
    Help fund and support family and smaller farms rather monopolizing 
the industry under a few major profitable farms.
    Allow farmers the right and power to save seeds and grow varieties 
outside of Monsanto--do not let Monsanto control the farming industry 
just because it has governmental ties, wealth, and power.
                                 ______
                                 
   Submitted Statement by Matt McInerney, Executive Vice President, 
                            Western Growers
    Thank you Congressman Costa and Congressman Cardoza for 
facilitating this Farm Bill Forum today. My name is Matt McInerney, 
Executive Vice President of Western Growers, and on behalf of our 2,500 
members who grow and ship fresh fruits, vegetables and nuts, I 
appreciate the opportunity to provide comments and observations 
relevant to specialty crop priorities in the 2012 Farm Bill.
    First, let me thank you both for your leadership in the 2008 Farm 
Bill that created a new paradigm in the U.S. agriculture policy that 
provided, for the first time, a meaningful investment in special crops 
to enhance the competitiveness and profitability in this strategic area 
of U.S. agriculture.
    The highlighted programs in the 2008 Farm Bill included School 
Fruit and Vegetable Snack, State Block Grant, Pest and Plant Disease, 
SCRI (Specialty Crop Research Initiative), and Market Access Program. 
These targeted initiatives have been invaluable to our industry and 
have provided the foundation by which to build the 2012 Farm Bill.

    (1) Block Grants

    One of the signature achievements in the 2008 FB was the creation 
of the Specialty Crop Block Grants program. We strongly urge you to 
continue this innovative approach that establishes a Federal-state 
partnership designed to enhance the competitiveness of the industry 
through funding to address immediate research needs, pest and disease, 
food safety, resource efficiency, and marketing. Over the years our 
state has benefited greatly from this funding. An example of the 
targeted use of these dollars is in terms of research dollars to help 
address the emergence of food safety concerns. The Center for Produce 
Safety at UC Davis, a recipient of such dollars and is a model for 
ongoing research needs to validate and improve on-farm practices to 
continuously improve food safety.

    (2) Nutrition

    The 2012 FB must renew a commitment between specialty crop growers 
and America's children and those less fortunate via the purchase and 
then distribution of our produce through the nutrition programs. I know 
you will have witnesses later that discuss the importance of nutrition 
programs to the residents of our great state, but I want to emphasize 
that our growers view those programs as critical to provide healthy 
choices. These programs are critical to feeding our less fortunate and 
our nation's children who need assistance. Our growers are proud to be 
part of those efforts and we want to maintain the increased role we 
have had in nutrition programs since the 2008 FB as we move forward in 
2012. Western Growers has said for years that ``fresh fruit, vegetables 
and nuts provide the best medicine'' and ensuring that all Americans 
can share in that medicine in these difficult economic times we think 
is important.

    (3) Pest and Disease

    For specialty crop producers Federal dollars spent on pest and 
disease prevention, detection and eradication represent vital 
opportunities to strengthen our industry, protect farmer's livelihoods 
and preserve jobs. Tens of millions of dollars nationally flow annually 
for this activity which is critical here in California especially with 
the state resources difficulties. We remain uncertain of the funds the 
state might be able to provide. The Senate bill provides a new version 
of the existing Plant Pest and Disease Program [the new one absorbs the 
Clean Plant Network program] funded at $60 million in FY13-16 and $65 
million in FY17 which is an increase of $109 million over 10 years. We 
encouraged the adoption of this provision in the House version that 
will duplicate or improve on the monies in the Senate.

    (4) Resource Management

    FB dollars assist producers across the state to better and more 
efficiently use resources. For our growers that represents many 
resource concerns however in our state clearly water is among our 
highest priorities. FB programs such as the Environmental Quality 
Incentives Program (EQIP) provide critical resources to upgrade 
irrigation systems and improve on-farm water use efficiency through 
other techniques. Research dollar spending then helps our industry plan 
for the longer-term by working on creating the next generation of crops 
that will use less water. Ensuring that FB spending continues to fund 
these priorities is critical in our state in which competition for 
resources is intense and growing.

    (5) Crop Insurance for Specialty Crops

    This is an emerging topic in this farm bill, and I would suggest 
that Western Growers board of directors has discussed this issue more 
over the last few months than we have over the last 10 years. We know 
that crop insurance beyond the traditional catastrophic coverage is the 
new trend in agricultural policy and we want to first understand it, 
then ensure that implementation of any program not create unintended 
consequences. We also want to explore how crop insurance could be more 
beneficial to us. Why do we have concerns? We are worried about 
insuring for speculation and make sure insurance products do not 
distort the sensitive supply/demand marketplace. The watermelon pilot 
program of 1999 by RMA is a perfect example. With that said we know 
crop insurance has come a long way since 1999 so we are open to 
learning more. Indeed, we are interested in seeing how crop insurance 
might be shaped with input from growers to deal with the new 
catastrophic dilemmas of the 21st century food safety and quarantine 
issues.
    In closing, the 2008 Farm Bill established new programs that 
recognized the importance of the specialty crop sector and its role in 
the economic well being of individual states and in improving the 
health of consumers across the land.
    We look forward to working with you both on these beneficial 
programs to the specialty crop sector. Thank you.
                                 ______
                                 
                        Comment of Leah McIntosh
    Date Submitted: Sunday, May 20, 2012, 11:26 a.m.
    City, State: Austin, TX
    Occupation: 9-1-1 Dispatcher
    Comment: I support the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act--H.R. 3286.
    I support fully funding conservation programs, such as the 
Conservation Stewardship Program and making sure that enrollment in any 
new insurance subsidies is tied directly to compliance with 
conservation programs.
    I support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    I support maintaining the EQIP Organic Initiative.
    I do not support cuts to funding of organic research.
    I do not support subsidies to already-profitable farm businesses or 
subsidies for crop and revenue insurance policies.
    I do not support direct payments to commodity farmers, nor do I 
support the proposed subsidized insurance program that is proposed to 
replace direct payments, but will allow giant commodity farmers and 
insurance companies to take billions of tax dollars while putting the 
land, soil and environment at greater risk.
    I ask you to place limitations on crop insurance subsidies and to 
re-attach soil erosion and wetland conservation requirements to crop 
insurance programs.
    I want real reform, and a healthy organic future!
                                 ______
                                 
                        Comment of Rene McIntyre
    Date Submitted: Friday, May 18, 2012, 1:06 p.m.
    City, State: San Francisco, CA
    Occupation: Music Teacher
    Comment: Can we all agree that we need to do something about our 
attitude about the farming industry? Farmers and consumers need 
assistance and support: most farmers don't get enough assistance and 
support in producing food in the ``best of ways,'' and a good deal of 
the nation's poor live in ``Food Desserts.'' We need to change this if 
our nation is going to continue to be the ``best'' in the world and for 
the sake of our future generations.
                                 ______
                                 
                      Comment of Katherine McKeen
    Date Submitted: Wednesday, May 02, 2012, 10:52 a.m.
    City, State: Oakland, CA
    Occupation: Student
    Comment: Hello,

    I am writing to voice my support for maintaining funding for the 
National Organic Certification Cost-Share Program. By helping organic 
farmers offset the costs of certification, the Program helps support 
both individual family farms through small payments (no more than $750 
annually per farm) while also advancing organic agriculture nationwide. 
Organic agriculture is a highly important part of America's economic 
future; the sector has continued to grow by almost 20% per year, even 
during the current economic downturn, and contributes $29 billion 
annually to our economy. If we do not maintain or increase funds for 
the Program in the next farm bill, we risk compromising a vital part of 
the American agricultural economy. In addition, organic farming has 
indispensable benefits for human health and environmental concerns.
    Although the farm bill has the express goal of ``supporting'' farm 
``both big and small'', I would urge increased discretion over what 
really constitutes a ``farm'' in the farm bill. Can large agro-food 
businesses which do not promote environmental sustainability or 
community health really be considered farms? I would consider 
reexamining the farm bill to support Actual farms, not huge 
agricultural machines trying to disguise themselves as farms in order 
to grab government subsidies.
    Thanks you for your consideration,

Katherine McKeen.
                                 ______
                                 
                        Comment of Mary McKeown
    Date Submitted: Saturday, May 19, 2012, 12:34 p.m.
    City, State: Black Mountain, NC
    Occupation: Retired Real Estate Agent
    Comment: Farm subsidy payments must be reined in, especially 
payments made to large corporations and people who no longer farm. 
Closing loopholes is of the greatest importance.
    Thank you.
                                 ______
                                 
                   Comment of Genesis McKiernan-Allen
    Date Submitted: Sunday, May 20, 2012, 11:22 p.m.
    City, State: Indianapolis, IN
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. My name is Genesis 
McKiernan-Allen and I am 28 years old. My husband and I recently moved 
back to our home state of Indiana to start a small business--a 
vegetable farm. Just this morning we harvested over 100 pounds of 
produce for our local Saturday morning Farmers' Market. If we are to 
succeed at this entrepreneurial effort, we need more support! I am one 
of hundreds (thousands?) of young farmers across the country trying to 
get started producing food and revitalizing rural communities. I'd like 
to share my support for programs that help the next generation of 
growers build strong farm businesses. As it's estimated that 125,000 
farmers will retire in the next 5 years, it's absolutely critical that 
farm bill programs help citizens get started in this challenging field. 
I ask that the Committee endorse all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Genesis McKiernan-Allen,
Full Hand Farm.
                                 ______
                                 
                         Comment of Mark McKim
    Date Submitted: Saturday, May 19, 2012, 4:26 p.m.
    City, State: Austin, TX
    Occupation: AmeriCorps Member
    Comment: Dear Members of the House Committee on Agriculture,

    I am writing today in support of the following policies. The 
current food bill being discussed lacks many of the vital components to 
address the nation's food problems such as obesity, soil erosion, 
excess run-off, and other public health related issues.
    I support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286).
    I support fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    I support maintaining the EQIP Organic Initiative.
    Please consider these recommendations when discussing the current 
food bill.
    Thanks.
                                 ______
                                 
                       Comment of Martha McKinney
    Date Submitted: Friday, May 18, 2012, 8:35 p.m.
    City, State: Kodiak, AK
    Occupation: Physical Therapist
    Comment: I urge you to fully support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Alaskan's particularly need these protections. Please support and 
protect your constituency, not agribusiness. While I'm at it, I urge 
you and your staff to view all four movies of HBO's The Weight of the 
Nation. It will inform you of the critical need to stop harming the 
health of our children. Thank you and sincerely.
                                 ______
                                 
               Comment of Pat McKnight, M.S., R.D., L.D.
    Date Submitted: Thursday, May 10, 2012, 6:06 a.m.
    City, State: Columbus, OH
    Occupation: Dietitian
    Comment: It is important to assure that the many nutrition 
components of the farm bill remain funded and increased where possible. 
SNAP, SNAP-ed, WIC, Senior Farmers Market are all very important to 
Ohioans as well as to other Americans.
                                 ______
                                 
                     Comment of Mariella McLachlin
    Date Submitted: Sunday, May 20, 2012, 2:54 p.m.
    City, State: Brooklyn, NY
    Occupation: Social Worker
    Comment: This country is in need of agricultural reform. Fresh 
fruits and vegetables must be available to everyone. Please make 
healthy food more affordable!
                                 ______
                                 
                         Comment of Alex McLean
    Date Submitted: Thursday, May 10, 2012, 7:28 a.m.
    City, State: Swannanoa, NC
    Occupation: Pastor
    Comment: Please protect SNAP, TEFAP, and CSFP in the upcoming farm 
bill. Hunger is rampant in Western North Carolina. We need the 
government's help. The charitable sector can only do so much.
                                 ______
                                 
                          Comment of L. McLean
    Date Submitted: Friday, May 18, 2012, 2:21 p.m.
    City, State: Seattle, WA
    Comment: I write today to voice my strong support of the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> Ending the stranglehold that BigAg has on our regulatory 
        system and you, our political leaders. Immediately. The 
        proposal to replace subsidy payments with a new subsidized 
        insurance program is, quite frankly, cynical at best and 
        criminal at worst. Stop the madness now.

    Thank you for your attention to these comments.
                                 ______
                                 
                      Comment of Dr. R.G. McLellan
    Date Submitted: Friday, May 18, 2012, 9:15 p.m.
    City, State: Marietta, GA
    Occupation: Doctor
    Comment: Value the health and well-being of the people rather than 
corporate agribusiness. Beautiful concept and must be put into practice 
in this country!
                                 ______
                                 
                       Comment of Robert McLinden
    Date Submitted: Sunday, May 20, 2012, 8:22 p.m.
    City, State: Germantown, MD
    Occupation: Scientist
    Comment: It has been proven, scientifically, time and again that 
biological diversity is the key to sustainable agriculture. By 
squeezing out the small farmer and supporting (unnecessarily) big 
agribusiness, we are flying in the face of this fact. I will not vote 
for anyone who supports big agribusiness at the expense of the small 
farmer.
                                 ______
                                 
                        Comment of Betsy McMahon
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: Manzanita, OR
    Occupation: Teacher at Community College
    Comment: Please take away subsidies from Huge Corporate Farms and 
support the small farmer in any way possible.
    Stop supporting all the chemicals that are killing our soils and 
instead support organic (what farming is supposed to be) farming.
    We need to stop these Huge beef, pork and chicken factories where 
animals are grown for profit and are fed chemicals, never see the sun 
and are crammed into these monstrous buildings. Creates very bad 
pollution of soil and air.
                                 ______
                                 
                       Comment of Dennis McManus
    Date Submitted: Monday, April 09, 2012, 10:27 a.m.
    City, State: Pittsburgh, PA.
    Occupation: Government Relations Manager.
    Comment: Congress should do its part by continuing to strongly 
support anti-hunger programs like the Supplemental Nutrition Assistance 
Program (SNAP), The Emergency Food Assistance Program (TEFAP), and the 
Commodity Supplemental Food Program (CSFP), all of which are authorized 
in the farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs will hurt both those struggling 
with hunger and those who must contend with the impact of hunger on 
government services and economic productivity. Fighting hunger is not 
only the morally right thing to do, it is the economically smart thing 
to do as well. Please protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization. Thank you.
                                 ______
                                 
                        Comment of Megan McManus
    Date Submitted: Friday, May 18, 2012, 10:29 a.m.
    City, State: Woodbridge, VA
    Occupation: High School English Teacher
    Comment: Please lend your support to the small family farmers who 
grow diverse plants and animals. Subsidize the carrot and eggplant, not 
Corn! Support the health of Americans by encouraging these small, local 
farms and not by encouraging biodiversity and not products (corn, soy) 
that contribute to junk food. Show that you care about healthy lives 
and not big business!
                                 ______
                                 
                       Comment of Ryan McMichael
    Date Submitted: Friday, May 18, 2012, 4:11 p.m.
    City, State: Canton, OH
    Occupation: Physician
    Comment: We need dramatic reform of the current farm bill 
regulations that clearly subsidize the production of food products that 
have the most devastating impact on our health. This needs to change 
and we need to find ways to incentivize the production and sale of 
nutritious foods--organic is a great place to start. As a physician, I 
see the side effects of the current policy everyday on the front lines, 
and it is extremely detrimental.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Marnie McMullin
    Date Submitted: Saturday, May 19, 2012, 1:55 p.m.
    City, State: Olympia, WA
    Occupation: Agriculture Student, Farm Aide
    Comment: This is a time to ensure food security and stop ignoring 
the blatantly obvious problems in our current agricultural system. The 
current system will inevitable fail and the people of this country, the 
people that you represent, will suffer. It is time to stop being 
bullied by mega-corporations and allowing them token organic and 
sustainable standards. It is clear that this will not work anymore. 
Open your eyes and see that these decisions destroy our people, land 
and country. Please support programs that aid small, diverse farms that 
practice truly sustainable methods of farming.
                                 ______
                                 
                      Comment of Jean G. McMurray
    Date Submitted: Wednesday, March 21, 2012, 11:52 a.m.
    City, State: Shrewsbury MA
    Occupation: Executive Director, Worcester County Food Bank
    Comment:
March 21, 2012

House Committee on Agriculture
Washington, D.C.

    Dear Chairman Lucas, Ranking Member Peterson, and members of the 
Committee:

    Thank you for the opportunity to provide input on the upcoming farm 
bill reauthorization. Given the need for food assistance in our state 
and the declining supply of Federal commodity support, I strongly urge 
you protect and strengthen nutrition programs in the 2012 Farm Bill.
    Every day, the Worcester County Food Bank and its network partners 
of 94 emergency food pantries, see how important Federal nutrition 
programs are in our community and how effectively they are working to 
ensure that struggling Massachusetts residents can provide enough food 
for their families. Currently, the Worcester County Food Bank and its 
network serve 83,145 different people annually, including over 32,000 
children under the age of 18.
    Over the last 3 years, the Worcester County Food Bank and its 
network have been challenged by unprecedented demand and uncertainty 
over available food resources. Throughout the region, we have seen a 12 
percent increase in the number of people helped since 2008. Food is a 
fundamental need that people are struggling to meet because they are 
unemployed or underemployed. Many are asking for help with feeding 
their families for the first time in their lives. When the Worcester 
County Food Bank network provides emergency assistance to households, 
we also connect them to a range of Federal nutrition programs that 
provide a lifeline, like the Supplemental Nutrition Assistance Program.
    Without strong farm bill nutrition programs like The Emergency Food 
Assistance Program (TEFAP), the Supplemental Nutrition Assistance 
Program (SNAP), and the Commodity Supplemental Food Program (CSFP), the 
Worcester County Food Bank and food banks across the country will 
struggle to fill the gap for food.
    We recognize the challenge you face drafting a farm bill in a time 
of deficit reduction, but we are also sensitive to the tremendous, 
ongoing need in our state. As such, we have two key priorities for the 
farm bill.
    First, we urge you to strengthen TEFAP to help us keep up with 
demand. TEFAP supplies about 25 percent of the food moving through 
Feeding America's national network of over 200 food banks, including 28 
percent for Worcester County Food Bank. But because of strong commodity 
prices, TEFAP food declined 30 percent last year, and it is challenging 
for our food bank to make up the difference. We urge you to make TEFAP 
more responsive during times of high need by tying increases in 
mandatory funding to a trigger based on unemployment levels. We also 
propose to enhance the Secretary of Agriculture's authority to make 
TEFAP bonus purchases at times when the need for emergency food 
assistance is high--for example high unemployment--in addition to times 
of weak agriculture markets so that the program can respond to both 
excess supply and excess demand.
    Second, we also strongly urge you to protect SNAP from harmful 
funding cuts or policy proposals that would restrict eligibility or 
reduce benefits. SNAP has responded effectively to growing need in the 
recession with benefits that are timely, targeted, and temporary. The 
average SNAP household has an income of only 57 percent of the Federal 
poverty guideline, and 84 percent of benefits go to households with a 
child, senior, or disabled person. The program is working to support 
vulnerable families in Massachusetts, and our food bank network would 
not be able to meet the increased need for food assistance if SNAP were 
cut.
    These programs have a real impact on your constituents, many of 
whom must rely on food banks and their partner food pantries as well as 
Federal nutrition programs to meet their basic food needs. I encourage 
you to visit the food banks serving your district before the Committee 
marks up a farm bill so you can meet our neighbors in need and see 
firsthand how Federal nutrition programs are working to protect 
vulnerable Americans from hunger.
    The Worcester County Food Bank believes that feeding our neighbors 
is a shared responsibility, and food banks like ours rely on a variety 
of food sources to support our communities, including generous support 
from partners in retail, manufacturing, and agriculture. However, the 
Federal government is an equally critical partner through programs like 
TEFAP, SNAP, and CSFP, and with tremendous, ongoing need in our state, 
continued Federal support is more important than ever.
    As the House Agriculture Committee moves forward with farm bill 
reauthorization, it is imperative that you do not take food away from 
Americans in need. Investing in anti-hunger programs is not only the 
right thing to do but also makes fiscal sense, as these programs allow 
us to care for our neighbors, build our communities and lead to savings 
in healthcare and education down the road. Worcester County Food Bank 
urges you to protect the nutrition safety net and offers the specific 
recommendations below as a member of the Feeding America national 
network of food banks.
            Sincerely,

Jean G. McMurray,
Executive Director.
Feeding America 2012 Farm Bill Priorities
    The Emergency Food Assistance Program (TEFAP): TEFAP is a means-
tested Federal program that provides food commodities at no cost to 
Americans in need of short-term hunger relief through organizations 
like food banks, pantries, soup kitchens, and emergency shelters. 
Nutritious food commodities provided through TEFAP are an essential 
resource for Feeding America food banks. As the demand for food remains 
high at food banks across the country, a continuous stream of TEFAP is 
necessary for the provision of a steady emergency food supply.

  <bullet> TEFAP commodities account for approximately 25% of the food 
        moving through Feeding America food banks. Food banks combine 
        TEFAP with private donations to maximize TEFAP benefits far 
        beyond the budgeted amount for the program. In this way, food 
        banks exemplify an optimum model of public-private partnership.

  <bullet> TEFAP has a strong impact on the farm economy. According to 
        USDA's Economic Research Service, producers of commodities 
        provided as bonus TEFAP (those purchased by USDA to intervene 
        in weak agricultural markets) receive an estimated 85 cents per 
        dollar of Federal expenditure. Producers of other commodities 
        provided through TEFAP receive about 27 cents per dollar. By 
        contrast, only about 16 cents of every retail food dollar goes 
        back to the farmer.

  <bullet> Declines in Section 32 funding and strong agriculture 
        markets resulted in a 30% decline in TEFAP purchases during 
        FY2011. This decline is expected to continue in FY2012 as food 
        banks continue struggling to meet increased need. The shortfall 
        between supply and demand will only worsen when the SNAP ARRA 
        benefit boost expires, as many participants turn to food banks 
        to make up for the reduction in benefit levels.

    Farm Bill Priorities for TEFAP:

  <bullet> Make mandatory funding for TEFAP food more responsive to 
        changes in need by providing a trigger that ties funding to 
        unemployment levels

  <bullet> Enhance Secretary of Agriculture's authority to purchase 
        bonus commodities in times of high need for emergency food 
        relief in addition to times of low commodity prices so the 
        program is responsive both to excess supply and excess demand

  <bullet> Reauthorize funding for TEFAP Storage and Distribution Funds 
        at $100 million per year

  <bullet> Reauthorize funding for TEFAP Infrastructure Grants at $15 
        million per year

    Supplemental Nutrition Assistance Program (SNAP): SNAP is the 
cornerstone of the nutrition safety net, providing over 46 million low-
income participants with monthly benefits via a grocery debit card. 
Eligibility is based on household income and assets and is subject to 
work and citizenship requirements. SNAP is one of the most responsive 
safety net programs, expanding quickly to meet rising need during the 
recession. The program is targeted at our most vulnerable; 76% of SNAP 
households contain a child, senior, or disabled member, and 84% of all 
benefits go to these households.

  <bullet> As the number of people unemployed grew 110% from 2007 to 
        2010, SNAP responded with a 53% increase in participation over 
        the same period. As the economy slowly recovers and 
        unemployment begins to fall, SNAP participation and costs too 
        can be expected to decline.

  <bullet> The SNAP accuracy rate of 96.19% (FY10) is an all-time 
        program high. SNAP error rates declined by 61% from FY1999 to 
        FY2010, from 9.86% to a record low of 3.81%.

  <bullet> SNAP benefits supplement a household's food budget but are 
        insufficient to last most participants through the month, 
        causing many participants to rely regularly on food banks. 
        Among food pantry clients receiving SNAP benefits, over \1/2\ 
        (58%) reported having visited a food pantry at least 6 months 
        or more during the prior year.

  <bullet> The average SNAP household has a gross monthly income of 
        $731 and countable resources of $333, consists of 2.2 persons, 
        and participates in the program for 9 months. The average 
        household receives a monthly benefit of $287, or about $1.49 
        per person per meal.

    Farm Bill Priorities for SNAP:

  <bullet> Protect SNAP by opposing proposals to cap or reduce funding, 
        restrict eligibility, reduce benefits, or otherwise impede 
        access or benefit adequacy. Recent proposals to block grant the 
        program would prevent it from responding effectively to 
        fluctuations in need, and efforts to limit broad based 
        categorical eligibility would increase administrative costs and 
        access barriers.

  <bullet> Restore the cut to the SNAP ARRA benefit boost used to pay 
        for the 2010 child nutrition bill and phase out the boost in a 
        way that protects families from a cliff in benefit levels.

  <bullet> Encourage better nutrition by maintaining nutrition 
        education, incentivizing the purchase of healthy foods, and 
        ensuring that retailer standards balance adequate access to 
        stores with access to a range of healthy foods and moderate 
        prices.

  <bullet> Build on SNAP's strong record of integrity and payment 
        accuracy by issuing guidance to states on the eligibility of 
        lottery winners and college students and upgrading resources 
        and technology for trafficking prevention.

    Commodity Supplemental Food Program (CSFP): CSFP leverages 
government buying power to provide nutritious food packages to 
approximately 599,000 low income people each month. Nearly 97 percent 
of program participants are seniors with incomes of less than 130% of 
the poverty line (approximately $14,000 for a senior living alone). 
Currently, 39 states and the District of Columbia participate in CSFP. 
Another 6 states (CT, HI, ID, MD, MA, & RI) have USDA-approved plans, 
but have not yet received appropriations to begin service.

  <bullet> CSFP is an efficient and effective program. While the cost 
        to USDA to purchase commodities for this package of food is 
        about $20 per month, the average retail value of the foods in 
        the package is $50.

  <bullet> CSFP helps to combat the poor health conditions often found 
        in seniors who are experiencing food insecurity and at risk of 
        hunger. CSFP food packages, specifically designed to supplement 
        nutrients typically lacking in participants' diets like 
        protein, iron, and zinc, can play an important role in 
        addressing the nutrition needs of low-income seniors.

  <bullet> Many seniors participating in CSFP are able to have their 
        food boxes delivered directly to their homes or to seniors' 
        centers nearby, an important benefit for those who are 
        homebound, have limited mobility or do not have convenient 
        access to a grocery store.

    Farm Bill Priorities for CSFP:

  <bullet> Transition CSFP to a seniors-only program by phasing out 
        eligibility of women, infants, and children while 
        grandfathering in current participants.
                                 ______
                                 
                       Comment of Patricia McNabb
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: New Brighton, MN
    Occupation: Retired
    Comment: To Large Commercial Farmers: I am terribly concerned about 
the current farming practices of large commercial farming companies. 
Your continuing use of pesticides and ``Agent Orange''-type chemicals 
makes me want to live off the grid by buying only locally produced food 
through cooperatives or local farmers. As you know bee colonies are 
falling apart and suffering badly. Furthermore, genetically altering 
seeds, especially when we consumers are not notified, is especially 
dangerous.
    You (and I) have no idea what the end result of such dangerous 
practices may be. Please take these ideas to heart and put them above 
your concern for your bottom line!
                                 ______
                                 
                         Comment of Amy McNair
    Date Submitted: Friday, May 18, 2012, 9:19 a.m.
    City, State: Hilliard, OH
    Occupation: Mom and Nurse Practitioner
    Comment: Dear Members of the House:

    You can judge a society based on the way they treat their most 
vulnerable populations. If we look at our children and our elderly, 
what would people say about our philosophy of life? It is time to step 
up and support farms that produce healthy foods, foods for all of us, 
but especially for our vulnerable populations. It is time to make 
healthier food affordable and accessible to these populations. It is 
time to raise our animals used for food with respect and dignity. As 
both a mother and a health care provider, I urge you to support this 
bill to make healthy foods more readily available to all of us.
            Thank you,

Amy McNair.
                                 ______
                                 
                       Comment of Claire McNeely
    Date Submitted: Saturday, May 19, 2012, 11:59 p.m.
    City, State: Westbrook, ME
    Occupation: Retired
    Comment: Agribusiness has taken over the food supply to the 
detriment of our farmers and those who prefer to eat locally. In the 
process they are poisoning our land, air and water and endangering our 
lives with GMO foods, monocultures and other dangerous practices. We 
the People need an organic farm bill Now.
                                 ______
                                 
                    Comment of Trish McPeak-LaRocca
    Date Submitted: Friday, May 18, 2012, 1:16 p.m.
    City, State: Amherst, MA
    Occupation: Nurse Educator
    Comment: As a health care provider I urge you to support best 
agricultural practices that supply our communities of people with real, 
unadulterated, health-promoting foods. Do not continue to subsidize 
commodity crops which have contributed toward our nation's decline in 
health. Please stand behind healthful food policies, not industrial 
food supports.
    Thank you.
                                 ______
                                 
                      Comment of Tristian McPhail
    Date Submitted: Saturday, May 19, 2012, 12:39 a.m.
    City, State: Austin, TX
    Occupation: IT Engineer
    Comment: Please support organic farmer including local and 
nationwide to grow healthy and organic crops, not allow corporate 
control our farmers' crops. I want to eat healthy produce.
                                 ______
                                 
                        Comment of Marnie McPhee
    Date Submitted: Friday, May 18, 2012, 2:16 p.m.
    City, State: Portland, OR
    Occupation: Writer and Former Farmer
    Comment: As a former organic farmer and co-founder of National 
Organic Harvest Month, I am well aware of how farm policy shapes land, 
lives, communities, and economies. Farm policies that support Family 
farms and the communities those farmers support, and standards that 
protect local and global environment are good for everyone, in the 
short- and long-term.
                                 ______
                                 
                       Comment of Holly McPherson
    Date Submitted: Monday, March 19, 2012, 6:36 p.m.
    City, State: Denver City, TX
    Occupation: Teacher/Rancher
    Comment: Make sure that politicians support farmers--they are the 
backbone of American exports.
    Please remember in your deliberations that government jobs do not 
create wealth for the United States they take money from the nation and 
that 1 farmer creates more than 11 jobs in support for the creation of 
exports to the world in food/fiber for the U.S. Private Industry makes 
!$$ for the nation NOT more govt. job or regulation.

Holly McPherson, Denver City, TX.
                                 ______
                                 
                         Comment of Pat McQuade
    Date Submitted: Friday, May 18, 2012, 9:50 p.m.
    City, State: Carmel, NY
    Occupation: Housewife and Gardener
    Comment: When are politicians going to start representing the 
People of this country, instead of your own selfish interests and 
corrupt corporations? Don't you realize your children's families will 
have to live in this mess you're creating long after you're gone? Do 
the job you were voted for . . . for a change.
                                 ______
                                 
                       Comment of Susan McSherry
    Date Submitted: Friday, May 18, 2012, 4:21 p.m.
    City, State: Dayton, OH
    Occupation: Teacher
    Comment: Current industrial agribusiness policies are a threat to 
American health. It is time to put the health of the American public 
before the interests of the monied agribusiness lobbies. It is time to 
move away from chemical and GMO contamination of our food supply and 
move toward a healthier organic or permacultural means of supplying the 
food we eat.
                                 ______
                                 
                       Comment of Winston McTague
    Date Submitted: Wednesday, May 09, 2012, 2:55 p.m.
    City, State: Newport, ME
    Occupation: Machine Operator
    Comment: Every farmer in America is going under and hunger is 
coming on strong and poor, disabled, homeless, shelters, food banks, 
veterans all cannot buy food now and republican screwballs are taking 
it all away And Needs To Stop Damit!
                                 ______
                                 
                      Comment of Elizabeth McTeer
    Date Submitted: Friday, May 18, 2012, 12:16 p.m.
    City, State: Sarasota, FL
    Occupation: Operations Manager
    Comment: Please don't subsidize GMOs! Please work against GMOs. 
They are not yet proven safe and are banned virtually in every other 
country for this reason!
    We as a nation are suffering the terrible health consequences 
including rapidly rising obesity, diabetes and heart disease that are 
directly linked to the over consumption of sweet and fatty foods that 
have been subsidized by farm bills in the past. The health of our 
citizens and the medical system would greatly benefit in the promotion 
of whole plant based foods (not GMO corn grown for cattle and GMO soy 
and beets for sugar and junk-food fillers). A healthy farm bill can 
encourage people to eat whole foods and resolve many of our budget/
health care cost problems. Please phase out all agricultural subsidies 
while boosting support for farmer's markets, land conservation and 
organic farming which protects farm workers against dangerous 
pesticides.
    Thank you!
                                 ______
                                 
                          Comment of Jan McVey
    Date Submitted: Saturday, May 19, 2012, 7:33 a.m.
    City, State: Harper Woods, MI
    Occupation: Sales
    Comment: I have several health issues which I truly rely on Organic 
foods for myself and my family. Our bodies are on over-load from all 
the chemicals we are ingesting already. It is absolutely imperative 
that farmers are allowed to grow food without more chemicals added.
    Look at the amount of sickness already, please take time to re-
think these decisions, and save our families from further illnesses. 
Our Food needs to be protected! God intended for our food to be 
naturally grown and not tampered with.
                                 ______
                                 
                       Comment of Trisha McWaters
    Date Submitted: Friday, May 18, 2012, 12:02 p.m.
    City, State: Wimberley, TX
    Occupation: Artist
    Comment: I think the food industry is a sham. I feel mainstream 
public has no idea what they are eating, and how many deadly chemicals 
are in food today. Please do away with GMO foods and please allow local 
farmers and local organic farmers to just grow their food without 
government stepping on them.
                                 ______
                                 
                         Comment of Morgan Mead
    Date Submitted: Saturday, May 19, 2012, 12:23 p.m.
    City, State: Marblehead, MA
    Occupation: Student
    Comment: Many of us, such as those required to have meal plans on 
campuses, are not able to choose the food that we eat. Requirements 
need to be stricter on places like these to ensure the health of 
students. They can basically feed us anything they want since we have 
to have it.
                                 ______
                                 
                      Comment of Nathaniel P. Mead
    Date Submitted: Saturday, May 19, 2012, 3:39 a.m.
    City, State: Spring Valley, NY
    Producer/Non-producer: Producer
    Type: Dairy, Field Crops, Fruits, Greenhouse/nursery, Vegetables
    Size: 50-150 acres
    Comment: Ecological diversity is what has created and will continue 
to create the foundation we have for our existence. Profit oriented 
endeavors leading to deterioration of our social and ecological 
networks need be seriously analyzed and hindered in favor of 
initiatives that encourage social and ecological diversity.
    Please give room for the future generations to have a meaningful, 
respectful and healthy relationship to the land.
                                 ______
                                 
                         Comment of Pao Meader
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Westbrook, ME
    Occupation: Information Technologies--MLTI Tech Leader
    Comment: I believe we need to adjust farm bill policies to support 
small, local agriculture. Too often, subsidies and policy favor large 
farms which cause further damage to our food supply both in quality and 
in reliability. Having discovered from personal experience how much a 
healthy diet can reduce health issues and generally improve a person's 
life. Please consider supporting local small agriculture.
                                 ______
                                 
                        Comment of Anne Meadows
    Date Submitted: Friday, May 18, 2012, 4:03 p.m.
    City, State: Washington, D.C.
    Occupation: Retired
    Comment: One of the reasons the nutrition programs were started in 
the first place was to support the agriculture industry. It's more than 
just a ``handout'' to the poor. Poor nutrition leads to poor students 
and workers. We need healthy, locally grown food in our schools and 
grocery stores.
                                 ______
                                 
                       Comment of Claire Meadows
    Date Submitted: Friday, May 18, 2012, 8:11 p.m.
    City, State: Lafayette, CO
    Occupation: Gardener/Cook
    Comment: Please keep corporate agribusiness out of the American 
Farm. Help us keep our food production at a local level and observing 
healthy, sustainable farming techniques.
                                 ______
                                 
                        Comment of Teri Meadows
    Date Submitted: Friday, May 18, 2012, 1:37 p.m.
    City, State: Fairfax, CA
    Occupation: Homemaker
    Comment: We need separate regulations for small farmers! Do not 
treat small farms like large AG! Let small farmers sell raw milk! Talk 
to small farms and understand their needs. People drank raw milk for 
thousands of years--it is normal and natural. We need local, organic 
produce as a means of national security. We need reform now.
                                 ______
                                 
                         Comment of A.E. Medina
    Date Submitted: Friday, May 18, 2012, 1:46 p.m.
    City, State: Paterson, NJ
    Occupation: Retired Educator
    Comment: Do the right thing please before we eat ourselves into 
nonexistence with the polluted food that is prevalent in our 
supermarkets. We all want and deserve good, clean, wholesome food. The 
wave has arrived, the farm bill needs to get onboard for the good of 
All of us. Go organic, everywhere!
                                 ______
                                 
                        Comment of Hale Mednick
    Date Submitted: Sunday, May 20, 2012, 9:23 p.m.
    City, State: Gresham, OR
    Occupation: Teacher, Former Farmer
    Comment: As a former organic farmer for 8 years, I can guarantee 
you that you cannot cave into the unreasonable demands of corporate 
agriculture and expect people's health and welfare not to continue to 
deteriorate. You need to support small, local organic farmers to have a 
strong food supply. Period. Make a stand now against corruption from 
corporate agriculture who only want profits.
                                 ______
                                 
                         Comment of Lex Medved
    Date Submitted: Friday, May 18, 2012, 6:44 p.m.
    City, State: Rahway, NJ
    Occupation: Architectural Draftsman
    Comment: Preserve the small farms. If not we will need bailouts to 
protect the large mega corporation which will then be deemed ``too 
large to fail'' Small and varied farming protects the environment, 
encourages diversity, and stimulated competition for the best food at 
the best prices. Isn't that the America we grew up with? Large firms 
will sell you ``what they got'', whether you want that or not.
    Thanks for reading this.

Lex.
                                 ______
                                 
                         Comment of Leonor Meek
    Date Submitted: Wednesday, May 02, 2012, 7:42 p.m.
    City, State: San Antonio, TX
    Occupation: Homemaker
    Comment: Please put necessary funds towards needy children first. 
It is so important to feed the future not putting more cash into rich 
people's pockets. Put all of yourselves in the position of individuals 
bringing in low wages or out of work. Thank you for your attention to 
this matter.

Leonor Meek.
                                 ______
                                 
                       Comment of Humera Meghani
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: Killeen, TX
    Occupation: Retail Sales
    Comment: I would like to have taxpayer-derived government subsidies 
be designated to local and organic farmers, as well as denying patents 
on genetically engineered seeds/plants/produce.
                                 ______
                                 
                       Comment of Diane P. Meier
    Date Submitted: Thursday, May 17, 2012, 1:20 p.m.
    City, State: Palo Alto CA
    Occupation: Partnership & Business Strategist; Local/Sustainable 
Food Advocate
    Comment: Dear members of the House Agriculture Committee:

    I am a partnership and business strategist committed to local/real 
food and sustainable agriculture. I am particularly passionate about 
edible education and connecting children to the food they eat, 
including the consequences of their food choices for themselves and the 
planet.
    We need a farm bill that:

  <bullet> creates jobs and spurs economic growth;

  <bullet> makes healthy food widely available to all Americans, 
        especially schoolchildren;

  <bullet> protects our natural resources;

  <bullet> invests in the next generation of farmers and ranchers; and

  <bullet> drives innovation for tomorrow's farmers and food 
        entrepreneurs.

    Please, invest our money in a farm policy that really matters!
            Thank you,

Diane P. Meier.
                                 ______
                                 
                         Comment of Jane Meigs
    Date Submitted: Friday, May 18, 2012, 12:45 p.m.
    City, State: Millerton, NY
    Occupation: Teacher
    Comment: For too long, large agribusiness interests have received 
the lion's share of Federal agricultural support. It is time to reverse 
that trend and support local, small family farms and protect the 
environment and our natural resources. More support should be given to 
small farmers and organic farmers. We need to move away from a system 
that is overly dependent on harmful pesticides and overly reliant on 
huge fossil fuel inputs. Please do all that you can to strengthen the 
small farming communities and increase support of organic agriculture.
                                 ______
                                 
                       Comment of Miriam Meisler
    Date Submitted: Wednesday, May 09, 2012, 7:05 p.m.
    City, State: Ann Arbor, MI.
    Occupation: Professor.
    Comment: I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.
                                 ______
                                 
                      Comment of Debra Mellentine
    Date Submitted: Friday, May 18, 2012, 8:24 p.m.
    City, State: Bannister, MI
    Occupation: Housewife, Hobby Gardener, Mom, Grandma, Oil Painter, 
Avid Organic Advocate
    Comment: I personally don't want Monsanto controlling my food 
supply. I was raised on canned produce and my parents purchased locally 
grass fed, free to graze beef as well as free range chickens for meat 
and eggs. I can tell you from experience there is no comparison when it 
comes to flavor from then to today's store fodder. Plus, who really 
wants a corn product that's been GMO produced so it can withstand 
having more poison (herbicides) added to it. Enough to kill anything 
else and probably us farther on down the road. I had a cousin who 
worked in a field that would know the dangers of this stuff who would 
constantly tell everyone that herbicides and pesticides would be the 
end of us.
                                 ______
                                 
                       Comment of Rosemary Melli
    Date Submitted: Friday, May 18, 2012, 12:18 p.m.
    City, State: Westport, MA
    Occupation: Speech Language Pathologist
    Comment: We need a Food and farm bill that supports sustainable 
agriculture and works to fix our present broken food system by 
discouraging the practices that have created `industrial agriculture', 
`factory farms', and food production that is non-nutritious, unhealthy, 
and harmful to our environment.
                                 ______
                                 
                       Comments of Gwenn Meltzer
    Date Submitted: Wednesday, May 02, 2012, 8:56 p.m.
    City, State: Woodlyn, PA
    Occupation: Advocate Advisor
    Comment: Farming is the backbone of our culture . . . if nothing 
else, they are the soul of our country and it's hard working people . . 
. as the Native American Indian is the soul of our nation of our land 
and the wildlife.
    Date Submitted: Wednesday, May 09, 2012 2:49 p.m.
    Comment: Farmers, as well as The Native American Indian, are the 
caregivers and caretakers of the land . . . ! . . . Do Not Disturb the 
Protector or the Provid-
er . . . It Is part of a `Sacred Trust' that should be respected . . . 
and kept
safe . . . !
                                 ______
                                 
                        Comment of Nancy Melvin
    Date Submitted: Sunday, April 22, 2012, 5:51 p.m.
    City, State: Chicago, IL
    Occupation: Gardening Teacher
    Comment: Food freedom is important. Now that the state of Michigan 
has passed a law that makes it illegal for a farmer to raise heritage 
pigs, calling them feral even when they are well cared for with good 
husbandry practices, it is most important that all of us consumers 
stand up for our rights. We should be able to eat what small farmers 
want to sell us. That means being able to buy raw milk, healthier by 
far than antibiotic laden pasteurized milk. I am forbidden by the state 
of Wisconsin from buying raw milk from a perfectly clean and 
responsible farmer. This broke his heart and he died of heart failure 
and his wife went insane with grief. Governments should have no right 
to bend to agribusiness by legislating what small farmers can and can 
grow and sell. Why should one large business be allowed to sell what it 
wants and another small business be forbidden? Healthy pork and healthy 
milk are now forbidden to us in the Midwest. It is insane that the 
state of Michigan can send police to a farm to shoot pigs and arrest 
farmers! It is unbelievable that the state of Wisconsin can close down 
a dairy, put the farmers in jail and force the sale of all their 
healthy cows! Protect the small farmers. Yes, I want the member of the 
house committee to hear this!
                                 ______
                                 
                       Comment of Joanne Memhardt
    Date Submitted: Saturday, May 19, 2012, 11:21 a.m.
    City, State: Schaumburg, IL
    Occupation: Retired
    Comment: Please oppose any proposals that would change SNAPs 
structure or funding restrict eligibility or reduce benefits. I am 
volunteer at our church food pantry.
                                 ______
                                 
                        Comment of Patricia Mena
    Date Submitted: Friday, March 16, 2012, 4:56 p.m.
    City, State: Oswego, NY
    Occupation: Retired
    Comment: Please do not allow the expiration of the portion of the 
farm bill that pays farmers whose land has gotten too wet to profitably 
farm to allow it to return to wetland. This only sounds 
counterproductive. Much farmland was ``forced'' out of original 
wetlands. To allow the return, we keep land that filters our drinking 
water, cleans toxins out of the air, and allows the balance of wildlife 
to return. Each part is needed.
                                 ______
                                 
                        Comment of Marcy Menard
    Date Submitted: Tuesday, April 10, 2012, 9:28 p.m.
    City, State: Zebulon, NC
    Occupation: Student
    Comment: My name is Marcy Menard and as a Dietetic Intern at 
Meredith College in Raleigh, NC, I would like to express my concern for 
the upcoming farm bill renewal. I am originally from Long Island, NY, 
and have grown up with a wide variety of crops in my backyard: 
potatoes, apples, and vineyards just to name a few. Not only are these 
fields and farmlands pleasing to the eye, but they are also essential 
to the farmer's lives and the sustainability of our local food system. 
I feel the same way about the food system here in Raleigh. Though the 
food may travel slightly farther within the state to get to me, the 
production of North Carolina grown produce is vital to sustain the 
local economy. In addition, such locally sourced and sustainably grown 
crops can promote improved nutritional status of our society. It is 
estimated that to meet the 2010 Dietary Guidelines recommendations for 
fruit and vegetable intake, the U.S. must dedicate an additional 13 
million acres of farmland, which illustrates the necessity of farmland 
conservation and development. I am in support of the upcoming farm 
bill. In particular, I believe that Title X (Horticulture and Organic 
Agriculture) deserves great consideration to help encourage and promote 
the production of fruits and vegetables among U.S. farmers to help 
improve the intake of fruits and vegetables among Americans.
                                 ______
                                 
                       Comment of Joseph Mendoza
    Date Submitted: Wednesday, May 09, 2012, 5:57 p.m.
    City, State: Denver, CO
    Occupation: Unemployed
    Comment: Every half-hour a farmer commits suicide in the third-
world for having to abide impossible to obey ultimatums. And the 
American senior citizens, themselves, are fed up with any merit-less 
obedience.
                                 ______
                                 
                         Comment of Max Mensing
    Date Submitted: Friday, May 18, 2012, 4:35 p.m.
    City, State: Yachats, OR
    Occupation: Business
    Comment: As a consumer I want to have the ability to buy food that 
is produced in ethical and wholesome ways , grass fed beef, non GM 
alfalfa, soy, and corn.
    We have allowed a few agricultural companies to monopolize the food 
production in this country.
    Small independent producers are being criminalized so the big 
agribusiness can monopolize what I and my family can eat.
    I urge you to cut subsidizes to large producers and give aid to the 
small family farmer.
    Also do not allow any more consolidation of farm resources like 
seeds.
    Best land management practices also need to be the law. Every river 
needs a greenbelt, and the soil needs to be protected.
    The knowledge that was painfully learned in the Dust Bowl of the 
1930's should not be repeated.
    Also pesticide and antibiotic use needs to be brought back down to 
levels used in the 1960's.
    Thanks for hearing me.
    Don't let agriculture be controlled by a few large corporations.
     For the banks to fail you borrowed and loaned and brought things 
back for food to fail, starvation in America could be the result.
    It happened in Ireland, don't let it happen here.
                                 ______
                                 
                      Comment of Elizabeth Mercado
    Date Submitted: Friday, May 18, 2012, 1:50 p.m.
    City, State: Lutz, FL
    Occupation: Homemaker and Small Business Owner
    Comment: It's all about having all natural foods with no chemical . 
. . I'm healthy and want to remain that way also for my future 
generation . . . thank you . . . p.s. I will start suing companies for 
using chemicals in my food.
                                 ______
                                 
                       Comment of Leone Merchant
    Date Submitted: Friday, May 18, 2012, 11:33 a.m.
    City, State: San Francisco, CA
    Occupation: Marketing Manager
    Comment: End subsidies to big business agriculture on corn and soy. 
Support local, organic family farms. Label all GMO food products s as 
so. End funding to CAFO's.
                                 ______
                                 
                        Comment of Robert Merhar
    Date Submitted: Friday, May 18, 2012, 4:55 p.m.
    City, State: Hudson, WI
    Occupation: Insurance Agent
    Comment: We need farming on a much smaller scale i.e.; regional 
farming, organic farming and of course the rapidly vanishing family 
farm. Our existing corporate farming model is not working and will only 
lead to more outbreaks of deadly diseases and fatter Americans with 
more diabetes and many other illnesses. Put the money where it can do 
the most good--in the regional local farms and encourage organic 
farming. For quite a few weeks now I have been going to my local chain 
grocery store looking for 1% organic milk and they have posted signs 
saying there is a shortage and they cannot adequately stock their 
shelves. Also stop supporting huge chemical corporations like Monsanto 
who do nothing but pressure and attack small farmers to by their 
genetically altered seed, with weed retardant and insect resistance 
genetically inserted into the seed. Thanks for your consideration.
                                 ______
                                 
                      Comment of Lawrence Merlino
    Date Submitted: Saturday, May 19, 2012, 3:27 p.m.
    City, State: Shady, NY
    Occupation: Internet Sales
    Comment: The dismal failure of biotech crops i.e., producing super-
weeds and super bugs, and the poisoning of the land and water by big 
agriculture companies shows the need for a sustainable farm bill which 
helps preserve family farms and common-sense rules and support for 
organic farming. As more and more people become aware of the state of 
our food supply the demand for healthy foods is increasing. Congress 
can prove their leadership by taking the lead in a movement which will 
be for the future good of our nation. Congress needs to stop pandering 
to these companies which almost assuredly will become dinosaurs and 
recognize the sustainable agriculture movement as the way of the 
future.
                                 ______
                                 
                        Comment of Robyn Merook
    Date Submitted: Thursday, April 26, 2012, 11:46 a.m.
    City, State: Morristown, TN
    Occupation: Medical Field
    Comment: Please support the farmers of American and encourage them 
to grow more crops instead of paying them not to. Our food supply is 
growing increasingly dependent on other countries when we have the 
capability to grow what we need. The safety of the food we eat is also 
getting more unstable--why are we bringing meat to the U.S. from other 
countries--are you people crazy? Our country and our citizens future is 
riding on the decisions you are making in Washington, please take time 
to think about and also Consider the people who put you in office and 
how these things will affect them before you make these decisions.
                                 ______
                                 
                       Comment of Edward Merriman
    Date Submitted: Sunday, May 20, 2012, 7:12 p.m.
    City, State: Villanova, PA
    Occupation: Librarian
    Comment: I favor an immediate investigation (by an independent 
agency with no possible conflicts of interest or links to any 
biotechnology firms) be made into the linking of BT and other 
pesticides in the massive honeybee deaths that have occurred over the 
past several years.
                                 ______
                                 
                       Comment of Timothy Merton
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Putney, VT
    Producer/Non-producer: Producer
    Type: Forestry, Other
    Size: 50-150 acres
    Comment: It is only a matter of time before the Members of the 
House Committee on Agriculture are going to have to deal with and 
accept labeling of Genetically Modified foods for consumers. I suggest 
that anyone on the Committee who has affiliations with Monsanto 
Corporation be removed from the committee in the name of ``conflict of 
interest''.
                                 ______
                                 
                        Comment of Gene Messick
    Date Submitted: Saturday, May 19, 2012, 5:45 p.m.
    City, State: Christiansburg, VA
    Comment: U.S. food and agricultural policy must focus on adopting 
best agricultural practices that put the health of our citizens, the 
land and the livelihood of farmers and farm workers over the interests 
of industrial agriculture lobbyists.
    I fully support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Federal assistance to family and organic farmers in equivalent 
amounts as agribusiness farms are supported.
    Please do Not attempt to balance any budgets by cutting Food Stamp 
funding. Because of my age, I for one could not survive without Food 
Stamps, much as I would prefer not needing them.
    I do as much as I can to raise my own food with my victory 
gardening, which has grown in size and production each of the past 4 
years.
                                 ______
                                 
                          Comment of John Metz
    Date Submitted: Sunday, May 20, 2012, 9:34 p.m.
    City, State: Cincinnati, OH
    Occupation: Professor
    Comment: Dear Committee members,

    I urge you to support H.R. 3236, Local Foods, Farms, and Jobs bill. 
Our food system needs fundamental reform. Whether we look at the 
farmers, who are must grow larger and larger and specialize on a few 
crops and whom have been going bankrupt at very high rates over the 
last 60 year, or if we look at the meat production system with its 
recurring contamination and recalls, or the obesity epidemic, which is 
driving our medical costs out of reach--the system is broken. HR 3236 
will begin to address these critical questions. I urge you to consider 
this bill carefully and vote for it.
            Sincerely,

John Metz.
                                 ______
                                 
                       Comment of Karen B. Meyer
    Date Submitted: Sunday, May 20, 2012, 11:39 a.m.
    City, State: St. Louis, MO
    Occupation: Accounts Payable Senior Specialist
    Comment: Dear House Agriculture Committee:

    I urge language in the farm bill that will ensure sustainable 
practices for our soils and protection of our waters.
    Taxpayers have supported a safety net for farmers for nearly 30 
years with a guarantee that subsidized farmers will follow basic 
conservation practices in their fields to protect soil and water. 
Farmers provide an important commodity to the American public, and have 
an urgent need to employ conservation practices in order to preserve 
the economic health and productivity of our farmlands and resources for 
the future.
    As the House Agriculture Committee prepares your draft of the farm 
bill, I urge you to restore the link between taxpayer-supported 
subsidies for crop insurance and conservation compliance protections 
that will protect our water and land.
    This action is especially important as Congress considers 
eliminating direct payments, the major subsidy program that is linked 
to conservation compliance, and moving some of those funds to support 
increased subsidies for crop insurance, which lacks compliance 
requirements. Unless you help to reconnect crop insurance subsidies to 
conservation compliance, farmers will no longer have incentive to 
follow conservation plans.
    Farmers need crop insurance and the public needs basic conservation 
practices on farms to make sure that quality farmland and water can 
support future generations as well as the current needs of our country. 
It's not acceptable to sacrifice long-term economic and environmental 
sustainability for short-sighted and short-term economic profits.
    Connecting eligibility for crop insurance subsidies to conservation 
compliance is fiscally responsible and ensures public subsidies for 
farmers' insurance premium payments align with the public's interest in 
basic conservation of our soil and water. Since Missouri consistently 
ranks in the top five for soil loss, losing more than 5 tons per acre 
per year, we must make soil conservation a priority.
            Sincerely,

Karen B. Meyer,
[Redacted],
St. Louis, MO.
                                 ______
                                 
                        Comment of Melanie Meyer
    Date Submitted: Friday, May 18, 2012, 12:05 p.m.
    City, State: Springfield, VA
    Occupation: Translator
    Comment: My family and I are extremely concerned about the current 
practice of wide-spread factory farming and about all the damage it 
does to people's health (antibiotic overuse, pesticide and other toxin 
exposure) to the environment and the often needless suffering inflicted 
on animals.
    We would like to strongly urge decision makers to put more emphasis 
on supporting small local farmers instead, especially organic farmers 
and to make organically produced food more readily available to the 
American people. Please stop the subsidies for large scale industrial 
farming and for junk food production and let those funds flow into 
local farming!
    The health benefits of natural food (and the lower foot print on 
the environment) will pay off in the long run in lower health care 
costs (both through healthier food and through cleaner air, water, 
etc.).
                                 ______
                                 
                       Comment of Patricia Meyer
    Date Submitted: Friday, April 20, 2012, 8:47 p.m.
    City, State: Albuquerque, NM
    Occupation: Teacher
    Comment: Please vote for the farm bill. The money is used in all 
our schools and for those kids who have no food at home. The subsidy 
programs feeds many hungry people who would have to go without. I have 
seen many parents choose to not eat so that their kids can. Cereal for 
all meals is very common. The cheapest foods are not always the most 
nutritious. In fact they are high carbohydrate and fruit is too 
expensive to eat. The programs that the Farm bill funds do make 
nutrition a priority.
                                 ______
                                 
                        Comment of Ronald Meyer
    Date Submitted: Friday, May 18, 2012, 11:53 a.m.
    City, State: Fresno, OH
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: 151-300 acres
    Comment: We have a surplus of corn and soybeans. It's time to stop 
subsidizing huge farms and change the farm bill to support small 
farmers, especially organic farmers, who supply the vegetables, fruits, 
and healthy meats that people want!
                                 ______
                                 
                          Comment of Ben Micek
    Date Submitted: Saturday, May 19, 2012, 4:15 p.m.
    City, State: Evergreen, CO
    Producer/Non-producer: Producer
    Type: Bioenergy, Greenhouse/nursery
    Size: Less than 50 acres
    Comment: It's time to think locally about food and to reallocate 
current subsidies to diverse farms replacing monocultures and ranches. 
We need to restore our soils, heal the land, and take care of the vital 
needs of one another.
                                 ______
                                 
                       Comment of Alexis Michaels
    Date Submitted: Friday, May 18, 2012, 1:07 p.m.
    City, State: Dearborn Heights, MI
    Occupation: Physician
    Comment: There can be nothing more important after defense than 
allowing people who are now trapped in cities with no other means than 
grocery stores, to choose to eat organic safe and nutritious foods from 
local farmers that contribute to the environment in a safe and 
thoughtful way. How can I tell my patients to make healthy food choices 
when Washington is collaborating with food industry to wipe out the 
local organic farmer. Has the bee crisis taught us nothing?
    We need to support local organic farming and reverse the damage 
done to our health, our local farmers, and our environment with corrupt 
policies that only support big farm business. What Washington finds 
expedient today for their own personal political needs, the country and 
the world will suffer with poor health and an environment that will no 
longer support healthy life.
                                 ______
                                 
                     Comment of Dale Ekahi Michaels
    Date Submitted: Friday, May 18, 2012, 4:42 p.m.
    City, State: Honolulu, HI
    Occupation: Healthcare Professional
    Comment: I am in support of an Organic Farm Bill. Organics are 
currently our only guarantee of foods being free of GMO.
    I support organics, I'm opposed to GMO, If anything does contain 
GMO, it must be clearly labeled as such.
    The health of the population that particularly of our children is 
all at stake here. Thank you for listening.

DM.
                                 ______
                                 
                       Comment of Nancy Michelli
    Date Submitted: Friday, May 04, 2012, 2:22 p.m.
    City, State: Hercules, CA
    Occupation: Retired
    Comment: I strongly urge the House Agriculture Committee to support 
small family farms. Large corporate ranching and farming has brought 
the citizen's of this country to poor health and disease. We need 
family farms more than ever.
    I personally only purchase organic produce from local farms through 
farmer's markets. I do grow much of my own as well. I also only 
purchase meat, eggs and dairy from a local meat CSA where the animals 
are grass fed and pasture raised. I refuse to buy the diseased and 
poisoned factory farmed meat predominant in the market today. Not to 
mention the disgusting and inhumane conditions in which they are kept, 
treated and slaughtered. Nor do I wish to purchase or consume GMO 
raised produce that has been treated with chemical fertilizers and 
pesticides and shipped across the country.
    In order for this country to survive there needs to be a return to 
the family farms and the end to corporate dominance when it comes to 
our food. We all need healthy unadulterated food to thrive as a nation. 
The citizens of this country deserve nothing less.
    I urge the House Committee on Agriculture to support the following 
amendments:

  <bullet> Family Farms First and Training for Beginning Farmers--put 
        forward by Senators Brown (D-OH) and Nelson (D-NE)

  <bullet> Affordable Land for Farmers, Forever--put forward by Senator 
        Leahy (D-VT)

  <bullet> Non-GMO Plant and Animal Breeding--put forward by Senator 
        Gillibrand (D-NY)

  <bullet> Crop Insurance for Organics--put forward by Senator Casey 
        (D-PA)

  <bullet> Beginning Farmer and Rancher Opportunity Act--put forward by 
        Congressman Walz (DFL-MN) and Congressman Fortenberry (R-NE)

  <bullet> The Local Farms, Food, and Jobs Act--put forward by 
        Congresswoman Pingree (D-ME) and Senator Brown (D-OH)

    Thank you for taking the time to read my comments. Please give this 
serious consideration and do the right thing.
                                 ______
                                 
                        Comment of Kathy Mickel
    Date Submitted: Wednesday, May 09, 2012, 3:04 p.m.
    City, State: Johnstown, NY
    Occupation: Retired
    Comment: Please pass a strong Farm bill that protects programs like 
SNAP, TEFAP & CSFP which help provide food for millions of America's 
most vulnerable seniors. My husband and I have been running a food 
pantry for 5 years and each month, the numbers go up for people that 
are in need of providing food for their families.
    This should also do away with subsidies that are for crops that are 
not grown.
                                 ______
                                 
                      Comment of Charles Mickelson
    Date Submitted: Friday, May 18, 2012, 3:22 p.m.
    City, State: Laramie, WY
    Occupation: Retired
    Comment: 90% of our health problems come from our food supply and 
our bad air. What we eat and breath is killing us. Stop thinking about 
your hip pocket and start thinking about the American people.
                                 ______
                                 
                     Comment of Melissa Middlebrook
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Seattle, WA
    Occupation: Yoga Teacher, Full-Time Mother, Designer
    Comment: We need a farm bill that supports small, local farmers and 
not big industrial agriculture. Big ag is poisoning our food and water 
supply, depleting farmland and has been on very dangerous course for 
too long. For our children and our planet, we need fundamental change 
towards sustainable agricultural. Thank you for your thoughtful 
consideration.
                                 ______
                                 
                       Comment of David Middleton
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: Skaneateles, NY
    Occupation: Industrial Design
    Comment: Please consider the following:

    1. eliminate subsidies for bio-fuel feed-stocks that involve food 
        crops or land used (or could be used) for growing food crops.

    2. eliminate use of antibiotics in farm animals.

    3. label GMOs

    4. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    5. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    6. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    7. Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Clare Miflin
    Date Submitted: Friday, May 18, 2012, 2:52 p.m.
    City, State: Brooklyn, NY
    Occupation: Architect
    Comment: Agriculture uses most of the planets fresh water and is 
the biggest polluter. We must reform the agriculture of the USA and 
promote local and organic foods from smaller farms which have an 
immensely smaller carbon footprint.
                                 ______
                                 
                      Comment of Christine Migeot
    Date Submitted: Wednesday, May 16, 2012, 8:44 p.m.
    City, State: Clementon, NJ
    Occupation: Web Designer
    Comment: Why would a humane country cut food stamps for the 
desperately poor and struggling at a time when unemployment is at 9% 
and so many can't find work that pays a living wage? I guess too many 
Congressional Reps feel a real need to punish those who already suffer 
so much. Food banks cannot make up for this. I've never protested for 
the hungry but perhaps it's time to start.
                                 ______
                                 
                         Comment of Jared Mike
    Date Submitted: Friday, May 18, 2012, 12:18 p.m.
    City, State: College Station, TX
    Occupation: Postdoctoral Research Associate in Chemical Engineering
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    We need healthy food, and right now, industrial farming practices 
are not--for both the environment (look at the state of wetlands, the 
huge subsidies for corn, algal blooms, water contamination, overuse of 
chemicals, etc.) and for people (overuse of chemicals, again, and 
decrease of nutrient content). Most of the chemicals we use pose 
significant risks to both health and environment and many do not 
decompose in a reasonable time-span, eventually contaminating the water 
supply. In addition, the overuse of chemicals leads to resistance, 
which, in turn, requires the development of new, sometimes harsher 
chemicals. We need to focus on alternative, sustainable farming 
practices.
                                 ______
                                 
                       Comment of Thomas Milcarek
    Date Submitted: Friday, May 18, 2012, 6:46 p.m.
    City, State: Santa Cruz, CA
    Occupation: Disabled Railroad Trainman
    Comment: The truth of the matter is all great Civilizations fall 
because they abuse their soil thereby have less healthy food less 
healthy people less healthy brains and lose the ability to do what it 
takes to solve the problems to save the civilization. We Are Doing This 
To Ourselves And If We Don't Turn It Around With Healthy Soil And Real 
Healthy Food We Are Doomed To The Same Fall. It Is Not Rocket Science. 
Read the book, Topsoil and Civilization, and you will see why we must 
go back to healthy soil and healthy food for people Not profit if we 
are to survive. Do you have enough clarity to see this? I hope so for 
our nations sake . . .
                                 ______
                                 
                       Comment of Robin Milcowitz
    Date Submitted: Friday, May 18, 2012, 12:16 p.m.
    City, State: Tampa, FL
    Occupation: Local Food Advocate/Graphic Designer
    Comment: A considerable restructuring of the subsidy formula and 
support structure for small farms, sustainable and organic farms needs 
to be made. The system now forces the hand of farmers to raise their 
product conventionally and in effect an inefficient, environmentally 
hazardous, inhumane, human-health deficient and fiscally irresponsible 
way. Retrofitting our food system to support the farmer, environment 
and physical and fiscal health of the population is what needs to 
occur. Please examine this bill in order to serve more than just ``big 
ag''--their money means nothing if it overrides your constituents' 
environmental, economic and physical health.
                                 ______
                                 
                       Comment of Michael Millard
    Date Submitted: Friday, May 18, 2012, 12:43 p.m.
    City, State: Chelsea, VT
    Occupation: Woodworker
    Comment: Regulations which support and encourage small family farms 
and meaningful support of true organic agriculture are essential. 
Agribusiness is Not serving either the health and nutritional needs of 
this nation, though it Is damaging the long-term health of our soil and 
land. Family farms, Not Monsanto, please. Thank you.
                                 ______
                                 
                      Comment of Antoinette Miller
    Date Submitted: Saturday, May 19, 2012, 12:46 p.m.
    City, State: Sioux Falls, SD
    Occupation: Retired
    Comment: I would love to see farming in our country return to more 
sustainable permaculture practices with more food crop diversity and 
much less chemical usage. I would love to see us move away from 
damaging monoculture.
    The corporate factory farm practices damage the soil, pollute our 
air and water and are making it ever more difficult to grow 
conventional and organic crops that don't rely on such heavy chemical 
usage and are more nutritious.
    Factory farms are becoming a huge source of health problems in our 
country, IMO, as are the CAFOs.
    GMOs that require the use of toxic herbicides & pesticides are a 
threat to our health, the health of our planet and its inhabitants. The 
overuse of these chemicals has created super weeds and resistant 
insects which the bio-tech industry claims can be handled with More 
toxic chemicals. That's Insane!
    It's no surprise to more Americans than you seem to be aware of 
that our food quality has fallen so far below standard and so many more 
health problems now plaque us from womb to grave.
    I would love to see subsidies go to smaller, more sustainable farms 
and ended for corporate factory farms. Their profits are high enough 
that they shouldn't need to be subsidized any longer. Studies have 
shown that we can feed America and share with other countries using 
more sustainable farming practices. The bio-tech and chemical companies 
have our government, from top to bottom, in a choke hold. They are only 
concerned with their bottom line and ``profits before people'' has 
become the norm. It's shameful.
    Corporate factory farms, the bio-tech industry and pharmaceutical 
industries are influencing lawmakers and slowly but surely destroying 
our small, sustainable farmers. For example, the feral hog hype that 
has caused farmers to kill their pigs to avoid charges. Factory farm 
pigs can also escape and become feral. There was no legitimate reason 
to outlaw the breeds of pigs the small farmers were raising. It was 
intended to eliminate competition for the corporate factory farms.
    People have wakened and are seeking local small farmers knowing the 
food they buy is healthier, safer and more nutritious. They want to 
avoid buying GMOs, factory farm produced food and animal products from 
CAFOs.
    Don't let corporate money and the power that goes with it destroy 
the only home we have, Earth, and all of us with it for the sake of 
higher profits now and no regard for our future.
    We Can feed ourselves using more sustainable farming prctices if we 
are not held back from doing it.
    Put political party aside.
    Think carefully and with an eye toward our future.
    You can protect us from greed fueled harm or you can allow our 
destruction.
    You decide which is the RIGHT way to go.
            Hopefully yours,

Antoinette Miller.
                                 ______
                                 
                        Comment of August Miller
    Date Submitted: Friday, May 18, 2012, 11:26 a.m.
    City, State: Longmont, CO
    Producer/Non-producer: Producer
    Type: Vegetables, Other
    Size: Less than 50 acres
    Comment: Our agricultural product is informed educated organic 
grower producing food on their own property. Please consider the 
inefficiency and vulnerability of our current food system that wastes 
resources (jobs, money, ecological degradation through chemical 
inputs). If you or any other political service member need a crutch 
(advertisement dollars for your position) to stand, then your service 
lacks meaning and purpose. Please do your volunteer job and teach your 
constituents what the issues are and how they affect our economy, 
health, and most importantly our attitude towards our own capacity to 
provide for ourselves.
                                 ______
                                 
                         Comment of Ben Miller
    Date Submitted: Saturday, May 19, 2012, 11:39 a.m.
    City, State: Montague, MA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 50-150 acres
    Comment: Allowing food production in this country to be dominated 
by industrial concerns for the last fifty years has been 
environmentally devastating. Food producers are innovative and dynamic, 
but cannot change to sustainable practices under the current system. 
Moving away from commodities crop subsidies and back to a system of 
price floors will liberate the food producers of this country in a 
truly competitive system. Let's begin the shift to a saner agriculture.
                                 ______
                                 
                        Comment of David Miller
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Berkeley, CA
    Occupation: Food and Beverage Quality Control Supervisor
    Comment: ``Non-producer'' but former organic farmer and always 
organic gardener also raising chickens and tree crops in small urban 
(Berk) front & backyard. Co-founder of 1st organic producers wholesale 
warehouse in SW Washington
    Essential to further fund and support industry standards for 
organic GMO free farm products and support sensible and humane programs 
for low income food and nutritional programming.
                                 ______
                                 
                        Comment of Debra Miller
    Date Submitted: Sunday, May 20, 2012, 10:30 a.m.
    City, State: Shingletown, CA
    Occupation: Dog Trainer
    Comment: I have taken an active interest in where my food comes 
from in the last 6 months. I no longer am interested in buying or 
supporting the factory farm industry. I am prepared to pay the extra or 
go without to support organic or natural methods of farming. I was 
appalled to learn how the meat animals are kept and am not interested 
in eating genetically modified produce.
                                 ______
                                 
                       Comment of Jennifer Miller
    Date Submitted: Friday, May 18, 2012, 9:28 a.m.
    City, State: Delmont, PA
    Occupation: Development Director
    Comment: I would like to make a statement in regards to the House 
Agriculture Committee as they develop the Farm Bill 2012. In 
Westmoreland County we feed over 15,000 people each month; it is a 
struggle year after year with continuing cuts to both our state and 
Federal funding. We have become more reliant upon fundraising; in fact 
in 2000 our budget relied upon 10% from fundraising and this year we 
are at 60%. In this economy that statistic is very frightening. Cutting 
anti-hunger programs will do nothing but Increase hunger in America, as 
well as the costs associated with health care, education, etc. It will 
also increase the amount of crime as people will do anything to feed 
their families and if help is not there I worry about the end results. 
Please remember the families, who are struggling in our community and 
protect & strengthen the anti-hunger programs like TEFAP, CSFP and SNAP 
in the 2012 Farm Bill reauthorization. We need your help to end hunger 
here at home . . . make it start with you! Thank you.
                                 ______
                                 
                        Comment of Jerre Miller
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: Willow Springs, MO
    Occupation: Retired
    Comment: I am disheartened that Congress always seems to side with 
, protect and pass over reality in favor of large agribusiness to the 
detriment of nutrition, support for organic farming (or any small size 
farming) and sustainable agriculture. If you are run only by the big 
agriculture industry and not the people then our food will always be in 
jeopardy. If you only care about the money you receive from big 
agriculture then maybe you should call yourselves lobbyists. That has 
been what has evolved. Maybe you might have a chance to be ethical for 
a change. Hoping!
                                 ______
                                 
                       Comment of Jessica Miller
    Date Submitted: Friday, May 18, 2012, 5:29 p.m.
    City, State: Jensen Beach, FL
    Comment: Stop the heavy use of pesticides which are now known to be 
causing colony collapse disorder in bees and poisoning our food, land 
and water. Encourage turning to organic methods and reject Monsanto and 
other unethical and environmentally unsound companies.
                                 ______
                                 
                         Comment of Joan Miller
    Date Submitted: Saturday, May 19, 2012, 5:13 p.m.
    City, State: Danville, IN
    Occupation: Masonry Contractor, Small Farm, Retail Establishment
    Comment: Please consider using common sense.
    We the people must take care of this Earth, the air we breathe and 
food we eat. By food
    I mean real food. Not split into this and that so the stalk can 
stand higher and the bugs won't eat. The GMO corn looks terrible. Our 
animals were not made to eat yellow stuff, corn yes, what is in a 
supposedly corn seed now? What kind of nutrition does it have? What is 
it doing to the fertility of our cows?
    Are you creating more loop holes in the new laws you are creating. 
Why don't you work with the laws you have and modify them? Create bills 
or laws the common person can read and understand. We shouldn't need a 
lawyer for interpretation. Our society keeps talking about obesity, 
look back in history, where did it really start. With artificial 
sweetener! You allow our food to be spliced and diced, our body's were 
not made that way. Do what is right for we the people and not the big 
those that call themselves ag producers, they are not producing good 
food. You are trusted by millions--earn it!
                                 ______
                                 
                       Comment of Kathryn Miller
    Date Submitted: Saturday, May 05, 2012, 7:03 p.m.
    City, State: Providence, RI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: To the Members of the House Committee on Agriculture,

    I am a young, small-scale organic CSA farmer in Rhode Island. 
Policies that support the production of cheap food at the cost of the 
environment and the health of farm workers hurt small scale producers 
by making it difficult for us to compete with cheap food. We are the 
future of agriculture in the U.S., please pay attention to our needs. 
Here are my thoughts.

  <bullet> I am glad that there is funding for CSAs and farmers markets 
        to accept SNAP benefits. I suggest that the funding be used to 
        buy CSA farmers and market managers Snap card swipe machines, 
        as well as provide matching funds for Snap dollars spent on 
        CSAs and at markets.

  <bullet> The EQIP High tunnel program has been wonderful for me. We 
        have increased our winter production because of it. However, 
        the structure of EQIP funding needs to be changed. As it 
        stands, farms get EQIP funding if there is an existing 
        conservation concern, and are paid to correct it, paying 
        farmers for bad behavior. The practices that cause these 
        conservation concerns should be controlled through regulation 
        and fines, and farmers who are practicing sustainable farming 
        methods should be paid to continue doing things well.

  <bullet> Regulations should always be scale appropriate

  <bullet> Research conducted by farmers is always more useful to me as 
        a beginning farmer than research done by extension agents, grad 
        students, or professors. Please cut funding for academic 
        agricultural research, and fund more on-farm research.

  <bullet> Cap subsidy amounts on a per-farm basis and reinstate 
        mandatory funding for 2501 under Title XIV (Miscellaneous) in 
        order to support disadvantaged farmers and continue the 
        standing fund for farm worker disaster relief.

  <bullet> Shift funding away from ethanol and commodity production and 
        towards sustainable agriculture and rural development research 
        and training in Title VI (Rural Development) and Title X 
        (Horticulture and Organic Agriculture).

  <bullet> Although there has been a great deal of positive press 
        regarding the shifts in Title I (Commodities) to reduce direct 
        crop subsidy payments and shift towards crop insurance support, 
        in reality, the tax payer resources will be directed to the 
        same large-scale, conventional production, monocrop operations, 
        that have harmful environmental and social consequences. With 
        no conservation requirements within the new Revenue Insurance 
        Scheme we fear production will be pushed onto marginalized land 
        causing adverse affects on our natural resources.

            Thanks,

Katie, Scratch Farm,
www.scratchfarm.com.
                                 ______
                                 
                        Comment of Kieru Miller
    Date Submitted: Saturday, May 19, 2012, 9:54 a.m.
    City, State: Austin, TX
    Occupation: Educator/Therapist
    Comment: Michael T McCaul,

    Cutting funding for the farm bill is a Bad idea! Our food supply in 
the country is Horrible and cutting funds will make it worst. If you 
give a damn about your kids, grandkids, their friends, and the future 
of our kids please WAKE up! Go rent the movie Food Ink. I Dare You To 
See This Movie! We originally were a country of wholesome farmers 
eating wholesome food from the land. Most of our health problems starts 
with the quality of food we eat. We are becoming a nation of obese, 
poor nourish, diabetic, cardiac citizen. We Must Change This Now! You 
are in the unique time and place to make a change in a bill that will 
impact the health of your family, cousins, kids, and gr and kids. Hurry 
you must act now. I am Begging You.
    U.S. food and agricultural policy must focus on adopting best 
agricultural practices that put the health of its citizens, the land 
and the livelihood of farmers and farm workers over the interests of 
industrial agriculture lobbyists. We need to increase funding to vital 
programs such as nutrition, conservation and support for organic and 
sustainable agriculture. Are you my superhero are you going to try to 
correct this terrible bill? Do you even give a damn?
                                 ______
                                 
                         Comment of Leah Miller
    Date Submitted: Sunday, May 20, 2012, 10:52 p.m.
    City, State: Cassel, CA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: Hello,

    I started a small livestock production business 3 years ago, which 
is supported by working another full time job. I lease land and pasture 
wherever I can find it. My only hope is that I will someday qualify for 
a beginning or young farmers loan, such as an FSA loan, and that there 
will be funds available if I do qualify. I have a B.S. degree in 
Agriculture, but without these types of grants and loans, I could never 
dream of owning my own farm or ranch, despite my education and 
experience. I hope that you can continue to support young and beginning 
farmers and ranchers like me, because our agriculture is and will 
continue to be profitable and vital, and food and fiber is what makes 
my home state of California as well as our nation such an amazing 
place!
                                 ______
                                 
                        Comment of Linda Miller
    Date Submitted: Saturday, May 19, 2012, 12:59 a.m.
    City, State: Buckeye, AZ
    Occupation: Substitute Teacher and Small Business Owner
    Comment: It is time to liberate farmers to be able to grow food by 
using sustainable agriculture, which includes the right to grow organic 
foods, and to leave the government out of the family farming business. 
We must protect consumer's right to have freedom of choice when 
purchasing their foods. To have GMO foods require labels indicating 
they are GMO's.
                                 ______
                                 
                        Comment of Lissa Miller
    Date Submitted: Friday, May 18, 2012, 2:34 p.m.
    City, State: Martinez, CA
    Occupation: Educator
    Comment: Please consider the health of your constituents; we want 
our agricultural model to produce food to feed us, but also to be 
sustainable. Subsidizing agribusiness is leading to the obesity 
epidemic and contributing to the pollution of air, water, and soil. 
Please support the work of organic farmers.
                                 ______
                                 
                       Comment of Mark J. Miller
    Date Submitted: Friday, May 18, 2012, 10:50 p.m.
    City, State: Alpharetta, GA
    Occupation: Commercial Real Estate
    Comment: Financially and legislatively support small to medium size 
organic farming. End subsidies for CAFOs and large GMO cop production. 
Require labeling.
                                 ______
                                 
                        Comment of Nancy Miller
    Date Submitted: Friday, May 18, 2012, 10:04 p.m.
    City, State: Del Mar, CA
    Occupation: Financial Sector
    Comment: We need to have healthy foods by organic farmers . . . my 
health depends on it! Please don't let large corporations run the food 
industry . . . Your children and grandchildren's health will depend on 
the decisions you make today.
                                 ______
                                 
                         Comment of Pam Miller
    Date Submitted: Friday, May 18, 2012, 7:47 p.m.
    City, State: Meriden, NH
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: While some may think Thomas Jefferson's agrarian ideal is 
a myth, I believe his understanding of the relationship between farming 
and democracy still holds true today. The small family farm is an ideal 
expression of democratic values, self-sufficiency, and productivity.
    The farm bill has done more to support Corporate Agriculture than 
it has done to support family farms and individuals. By catering to the 
desires of Big Ag lobbyists, the farm bill has lost both its integrity, 
and more importantly, its contract with the American people to provide 
safe, healthy alternatives to the destructive agricultural and food 
production practices of Corporate Agriculture. I fear that the House 
Committee will only 'listen' to lobbyists, leaving the needs of true 
working farmers off the table.
    How sad to see that Jefferson was right--where do we see democratic 
values being exhibited in Agriculture policy? Certainly not in the farm 
bill.
    Please, for the sake of this country, and those of us who don't 
have lobbyists to represent us (the majority), listen to ordinary 
Americans and create a farm bill for the people, not for Corporate 
Agriculture.
    Thank you for taking the time to read this.
            Sincerely yours,

Pam Miller,
Main Street Farm.
                                 ______
                                 
                       Comment of Patricia Miller
    Date Submitted: Saturday, May 19, 2012, 10:57 a.m.
    City, State: Spokane, WA
    Occupation: Retired
    Comment: It's about time we in the U.S. stop poisoning our food 
supply. To many chemicals on Vegetables as well as to many hormones and 
antibiotics in our meat. No labeling on our produce to tell us if it's 
been altered and not enough inspectors at meat packing plants. We need 
to catch up to Europe whose government seems to care about the health 
of their people and not profits. We have unhealthy children and it's 
not just from their life style, but from additives. If things don't 
change I suggest we change the name of this Country to The United 
States Of Greed.s
                                 ______
                                 
                        Comment of Robert Miller
    Date Submitted: Friday, May 18, 2012, 9:32 a.m.
    City, State: Connellsville, PA
    Occupation: Design Associate
    Comment: I would like to make a statement in regards to the House 
Agriculture Committee as they develop the Farm Bill 2012. In Fayette 
County over 3,000 families (over 7,000 people) rely upon the Food Bank 
and their Food Pantries each month; it is a struggle year after year 
with continuing cuts to both state and Federal funding. Cutting anti-
hunger programs will do nothing but Increase hunger in America, as well 
as the costs associated with health care, education, etc. It will also 
increase the amount of crime as people will do anything to feed their 
families and if help is not there I worry about the end results. Please 
remember the families who are struggling in our community and protect & 
strengthen the anti-hunger programs like TEFAP, CSFP and SNAP in the 
2012 Farm Bill reauthorization. We need your help to end hunger here at 
home . . . make it start with you! Thank you.
                                 ______
                                 
                        Comment of Steve Miller
    Date Submitted: Friday, May 18, 2012, 2:11 p.m.
    City, State: Orwell, VT
    Occupation: Small Business Owner
    Comment: We are concerned about the forced use of proven poisons 
(GMO) in food and livestock production. We are also concerned that the 
committee has been corrupted by their past associations with Monsanto 
and the like. We are also concerned by the present weather manipulation 
(chemtrail) that we see almost daily and which has been admitted 
publicly.
                                 ______
                                 
                        Comment of Tamra Miller
    Date Submitted: Friday, May 18, 2012, 9:58 p.m.
    City, State: San Diego, CA
    Occupation: Singer Songwriter
    Comment: It is my belief that access to organically grown meats and 
produce from small farms is the saving grace of our people and our 
planet. Please stop placing corporate greed and alliances over what is 
best for humankind and all the beautiful creatures we inhabit the Earth 
with. Large scale industrial monoculture is leaving our soil in ruin 
and is deriving us of nutrient dense food to nourish ourselves. Stop 
the madness!
                                 ______
                                 
                         Comment of Tara Miller
    Date Submitted: Sunday, May 20, 2012, 9:50 a.m.
    City, State: Lexington, VA
    Occupation: Owner, Local Foods Retail Shop
    Comment: Americans are (finally) waking up to the terrifying 
reality of our food system. It's time for Congress to do the same. It 
is not viable or sensible for our government to continue to support 
agribusinesses whose aim is to effectively own our (and the world's) 
food supply. We need a farm bill that will assist in the development of 
community-based food systems. Community systems (unlike our current 
agribusiness system) are transparent, safe and self-regulated (because 
the consumers know the producers). Community systems produce healthful, 
nutritious, unprocessed and very delicious foods. Agribusiness produces 
``food-like substances'' that many Americans have, sadly, come to think 
of as ``food''. Agribusiness foods have spawned obesity and diabetes 
epidemics--look around and take notice of all the overweight kids in 
your district; then visit their schools and see what your government 
(thanks to you) is feeding them. Congress can change all of this in a 
heartbeat if you put the health and well-being of your constituents 
above the monetary support (direct and indirect) of agribusiness. It's 
time to step up to the plate!
                                 ______
                                 
                    Comment of Ehren Miller-Nogueira
    Date Submitted: Friday, May 18, 2012, 12:48 p.m.
    City, State: E. Calais, VT
    Occupation: Teacher
    Comment: A couple of important points.

    (1) Require labeling of foods containing GMOs

    (2) Stop the spread of GMO cross-contamination

    (3) Support humane food practices and support small scale 
        production instead of large scale.

    (4) Diversify crop production. Support only sustainable agriculture 
        including fish farming.

    If the government invests as much money in sustainable production 
as we do now in large corporate operations food we will all be in way 
better shape.
                                 ______
                                 
                    Comment of Susan Miller-Stigler
    Date Submitted: Friday, May 18, 2012, 10:13 a.m.
    City, State: Cincinnati, OH
    Occupation: Homemaker
    Comment: I am very interested in family scale agriculture and 
supporting people not industry in farming. I am concerned about the 
health of my family and community and want access to high quality 
foods. I am saddened to see the disease our people are suffering as a 
direct result of the cheap junk they are eating and urge you to end 
subsidies for wheat, corn and soy, especially GMO varieties. Thank you.
                                 ______
                                 
                        Comment of Kari Millete
    Date Submitted: Friday, May 18, 2012, 12:55 p.m.
    City, State: Sacramento, CA
    Occupation: Personal Chef
    Comment: As a chef and mother, I want the best possible ingredients 
I can find. I do not want my food supply to be decided by giant agri-
corporations who only care about the bottom line. In this day and age 
of persistent mad cow, Salmonella, Listeria, etc. outbreaks, the right 
thing to do is to protect the small farmers and try to ensure the 
population's safety from massive outbreaks. Please do the right thing.
                                 ______
                                 
                        Comment of Pat Milliren
    Date Submitted: Friday, May 18, 2012, 6:16 p.m.
    City, State: Port Angeles, WA
    Occupation: Retired Park Ranger
    Comment: I Do produce some of my own food. Partly because I love to 
work out of doors in direct relationship with the Earth and partly 
because I want organic, local produce. Our Farmers' Market is critical 
to me and our county. We Must provide support for small, organic and 
becoming-organic farmers to grow local food. It is part of our national 
security. Large agribusinesses do Not need Federal support, no matter 
what they tell you. They are ruining our land with their mono-cultures, 
GMO products, vast plantings and equipment that separate people from 
the land, and practices that do not work with wildlife and weather. We 
are losing our soil for the second time (can't we learn from our 
mistakes?), and we are losing our souls as we separate ourselves from 
the land.
    I endorse all provisions of the Local Foods, Farms and Jobs Act 
(H.R. 3286).
    I beg for full funding of conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    Our nation desperately needs implementation of all provisions of 
the Beginning Farmer and Rancher Opportunity Act (H.R. 3236), and we 
must maintain the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Henry Millis
    Date Submitted: Saturday, May 19, 2012, 9:14 a.m.
    City, State: Charleston, SC
    Occupation: Long Shore
    Comment: I know you people are religious, so do you not think your 
God made the Earth and its food perfect. Monsanto is not god and I do 
not like eating chemicals that God did not plan on us eating. The only 
thing we have on this Earth is `Clean Food' Water and Air but now you 
have let the corporations destroy the only pure thing left on this 
planet, and yes that includes your children and grand children and if 
you think they are immune to what you have let happen why don't you get 
them tested and see how many of these great toxins you can find in 
their bodies. Stop The Madness all the Money in the world can't save 
you or your families from this.
                                 ______
                                 
                        Comment of Andrea Mills
    Date Submitted: Friday, May 18, 2012, 8:00 p.m.
    City, State: Websterville, VT
    Occupation: Co-Op Sales Person
    Comment: Please do not cut $4 million from organic research 
funding. Please do not cut in half funding to support Beginning 
Farmers. Please support organics. Agribusiness like monoculture farming 
and antibiotic stuffed meats is killing the environment. We really have 
to change direction to support the environment so that it can support 
us. No matter who is putting money in your pocket to have you vote 
otherwise if you do that will be wrong for everyone you represent. 
Please consider the consequences.
                                 ______
                                 
                        Comment of Beverly Mills
    Date Submitted: Friday, May 18, 2012, 1:49 p.m.
    City, State: San Francisco, CA
    Occupation: Communications
    Comment: Agricultural policy has contributed substantially to the 
obesity problem in America. We are going to be paying huge amounts of 
money in the future to deal with it so Stop Subsidizing Sugar And Other 
Unhealthy Food Programs.
                                 ______
                                 
                       Comment of Igalious Mills
    Date Submitted: Sunday, May 20, 2012, 10:24 p.m.
    City, State: Port Arthur, TX
    Occupation: Legislative Liaison/Farmer
    Comment:

    1. Why is there so much red tape just trying to get information 
        from the State and Federal USDA agencies in a timely manner 
        regarding the historical disparities of information, access to 
        funding (public and commercial financial institutions) grants, 
        research and development pilot projects, etc.

    2. Will Members of the House Committee on Agriculture support an 
        Interim Study for Historically Underrepresented farmers and 
        Ranchers in the State of Texas? If not why not? The Texas Small 
        Farmers and Ranchers/CBO has requested this study by the Texas 
        House Speaker, but has not been considered.

    3. Why has the House Committee on Agriculture refuse to hear from 
        the Black farmers and ranchers in the State of Texas? Having 
        one ``Field Hearing'' located in Lubbock, Texas in 2010 is 
        ``unacceptable'' unless the intention was not to get diverse 
        feedback in an open honest manner.

    4. What agency or agencies are responsible for monitoring land 
        grant colleges in the State of Texas? Funding disparities? 
        Student agriculture graduation impact?

    Closing Statement: It is our hope that this House Committee on 
Agriculture does not overlook the contributions Black farmers and 
ranchers has made and continue to make for a stronger country where we 
all should be treated equally and given the opportunity to fulfill the 
American Dream, one Nation Under God with Liberty and Justice for all.
    God Bless the United States of America,

Igalious Mills, Legislative Liasion,
Texas Small Farmers and Ranchers/CBO,
Port Arthur, Texas.
                                 ______
                                 
                         Comment of Kerry Mills
    Date Submitted: Friday, May 18, 2012, 9:38 a.m.
    City, State: Richmond, VA
    Occupation: Art Historian
    Comment: Please put an end to corporate food production! Support 
local and sustainable farming practices for safer and more healthy food 
and to save the environment form CO<INF>2</INF>.
                                 ______
                                 
                        Comment of Michael Mills
    Date Submitted: Friday, May 18, 2012, 9:45 a.m.
    City, State: San Francisco, CA
    Occupation: Nonprofit Administrator
    Comment: It is time to stop subsidizing sugar and corn which is 
causing people to eat unhealthy foods costing the country billions in 
unnecessary and preventable health care costs. Support organic, 
sustainable farming and stop supporting factory farms and pesticide 
laden agriculture. Farm workers and consumers continue to be hurt every 
day by the subsidization of unhealthy foods, pesticides, and companies 
that care only about profit and not the public health.
                                 ______
                                 
                        Comment of Saskia Mills
    Date Submitted: Friday, May 18, 2012, 11:41 a.m.
    City, State: Davis, CA
    Producer/Non-producer: Producer
    Type: Field Crops, Specialty Crops
    Size: Less than 50 acres
    Comment: Please end subsidies to large corporate farms in America, 
in favor of support for small and new farmers. Please maintain programs 
to support better nutrition and environmental conversation in 
agriculture, and put caps on subsidies of crop insurance premiums. 
Please focus on what's good for the people of America, not the 
corporate agribusiness community.
                                 ______
                                 
                         Comment of Wanda Mills
    Date Submitted: Monday, April 09, 2012, 3:22 p.m.
    City, State: Austin, TX
    Occupation: Retired Administrator
    Comment: Committee Members: I am so concerned about the large 
number of children that each day go to bed and to school hungry. The 
situation with adults is dire too. Please make sure that adequate 
funding is provided to those agencies that attempt to address hungry. 
It is essential we feed especially our small children so they can learn 
and be of future benefit to society. Even one child going to bed with 
an empty stomach is Too Many! We are a compassionate nation and we 
should show it in ways that benefit our children. Please fund hunger 
programs.
                                 ______
                                 
                      Comment of Karla Milosevich
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: San Francisco, CA
    Occupation: Artist
    Comment: No more money for environmentally damaging crops such as 
GMO corn. Long term environmental health is in the best interest of 
everyone ultimately, way more important than short term financial gain. 
Just say no to Monsanto and yes to small family farms.
            Thank you for all you do,

Karla Milosevich.
                                 ______
                                 
                         Comment of Peter Minde
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: Dover, NJ
    Occupation: Self-Employed
    Comment: Farm policy should ban genetically modified organisms and 
irradiation of food. If you intend to sallow these practices, food 
manufacturers should be legally compelled to inform consumers on the 
label. You should be supporting small farms and organic agriculture, 
NOT factory farms.
                                 ______
                                 
                       Comment of Marilyn Minder
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Charlotte, NC
    Occupation: Retired
    Comment: I am an organic vegetable gardener. I hope you don't 
realize too late that we are poisoning ourselves and our children with 
current farming practices. Many health conditions are related to the 
pesticide-laden foods we eat. Or do you eat organic veggies already for 
yourself and your family? Can you afford the best?
                                 ______
                                 
                       Comment of Madeline Miotto
    Date Submitted: Friday, May 18, 2012, 12:25 p.m.
    City, State: Southgate, MI
    Occupation: Retired--American Airlines
    Comment: A healthy nation would far benefit our future . . . not 
money hungry industrial agriculture lobbyists. Consider what's best for 
the nations people as a whole.
                                 ______
                                 
                        Comment of Tess Mirabal
    Date Submitted: Thursday, April 12, 2012, 4:54 p.m.
    City, State: Albuquerque, NM
    Occupation: Director of Resident Services, YES Housing, Inc. 
Nonprofit Organization
    Comment: Please increase funding to the farm bill. These funds help 
us to provide food through partnership with our local food bank to the 
residents of the affordable housing communities we develop and rehab 
across the state of New Mexico. Several counties still go without 
services due to lack of funding. Very low income elderly, disabled and 
families with children are having to make tough choices between food on 
the table or shelter, meds, utilities, etc.
                                 ______
                                 
                         Comment of Rich Mires
    Date Submitted: Friday, May 18, 2012, 3:58 p.m.
    City, State: Prineville, OR
    Occupation: Local School Board Member (Retired)
    Comment: We need to insure that small farms and organic farms are 
protected. It is important that a safe, nutritious and edible food 
supply is made available to our schools--let alone all other citizens. 
Corporate America has too much freedom to give us whatever they want 
and expect us to eat it.
                                 ______
                                 
                       Comment of Teresa Mitchel
    Date Submitted: Saturday, May 19, 2012, 6:46 p.m.
    City, State: Ashland, OR
    Occupation: Public Health Educator around Food
    Comment: I am extremely disappointed at the continuance of policies 
that support an unsustainable food system, while disregarding and 
under-supporting those methods that sustain healthy people and a 
healthy environment. Healthy small family farms are a vital and 
necessary commodity in our world, and need additional resources and 
favorable policy decisions directed towards making these entities 
strong.
                                 ______
                                 
                     Comment of Alexander Mitchell
    Date Submitted: Friday, May 18, 2012, 10:31 a.m.
    City, State: Napa, CA
    Occupation: Machinist
    Comment: Please implement policy that promotes small local 
agriculture, and limits the use of fossil based fertilizers. We need to 
steer away from huge mono-cultures and give the helping hand to forms 
of agriculture and food that work towards a more diverse and natural 
product.
                                 ______
                                 
                       Comment of Brent Mitchell
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: Carlsbad, CA
    Occupation: Real Estate Developer
    Comment: Please label GMO crops, purge government incest with 
Monsanto. Decrease the use of harmful pesticides/fertilizers to protect 
our lives and water supplies. Stop giving subsidies to large profitable 
agribusiness.
    Please!
                                 ______
                                 
                       Comment of Clint Mitchell
    Date Submitted: Friday, May 18, 2012, 1:57 p.m.
    City, State: Fort Collins, CO
    Occupation: Trail Maintenance Crew Member
    Comment: The support of organic agriculture could stimulate 
economic growth by giving farmers the opportunity to enter niche 
organic markets that could not be attainable without Federal support.
                                 ______
                                 
                       Comment of Edward Mitchell
    Date Submitted: Friday, May 18, 2012, 12:23 p.m.
    City, State: Barnesville, GA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 1,000+ acres
    Comment: Please for the love of all that America pretends to stand 
for, break ranks from your corporate sponsors, vote against this 
fascist agenda, vote in favor of local communities, economies and 
support the plight of small farmers.
                                 ______
                                 
                        Comment of Joan Mitchell
    Date Submitted: Friday, May 18, 2012, 12:35 p.m.
    City, State: Bushkill, PA
    Occupation: Pastor
    Comment: How our food is grown is vital to the health and welfare 
of all our citizens. Huge ``factory'' farms pay less attention to 
quality than to profits, whereas supporting the family farms will tend 
to produce the best quality for all, as well as assuring a living to 
ordinary people. I urge you to vote in a direction that supports 
working families and healthy crops for all.
                                 ______
                                 
                        Comment of John Mitchell
    Date Submitted: Friday, May 18, 2012, 9:00 p.m.
    City, State: Somerset, CA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I am a small organic specialty vegetable farmer it is 
critical that the American people have a voice in the manner in which 
their food is grown and processed before it is consumed. At this time 
those decisions are being made by agribusiness concerns whose primary 
interest is money, and care little or nothing about the quality, or 
health value of their crops.
                                 ______
                                 
                       Comment of Robin Mitchell
    Date Submitted: Friday, May 18, 2012, 7:07 p.m.
    City, State: El Cerrito, CA
    Occupation: Building Energy Efficiency Research
    Comment: Fully fund the Organic Research and Extension Initiative 
(OREI) at the 2008 level.
    I hope that the farm bill will strongly support organic farmer and 
farming, as well as conservation measures. I obtain 99.9% of all my 
food from the local organic farmers' market or the local natural 
grocery store, which buys from local and non-local organic farmers. It 
is vital for the health of the ecosystem and our continued existence as 
a species that we wean ourselves off herbicides, pesticides, and fossil 
fuel based fertilizers, all of which organic farmers do.
    I encourage you to:

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Program.
                                 ______
                                 
                        Comment of Eileen Mitro
    Date Submitted: Sunday, May 20, 2012, 11:51 a.m.
    City, State: Ukiah, CA
    Occupation: Retired Educator
    Comment: Too much support is given to agribusiness putting out 
toxic fertilizers and pesticides to grow genetically modified plants. 
Too little support goes to small farmers growing responsibly clean food 
using fertilizers and pest control methods that work and do not poison 
our environment. It's an easy switch to a healthier farm bill. Will the 
money with which Big Agriculture peppers Congress work yet again to 
subsidize them?
                                 ______
                                 
                     Comment of Alison Mittelberger
    Date Submitted: Wednesday, May 02, 2012, 10:49 a.m.
    City, State: Oakland, CA
    Occupation: Student
    Comment: Dear Representatives,

    I want to write to you to voice a priority that I believe the 2012 
Farm Bill must emphasize. As a young person with an interest in 
sustainable agriculture, I think there should be big emphasis on 
adequate support of new and coming farmers who want to begin their own 
farms. In theory, the farm bill provides funding for new farmers, but 
in practice, it should support new farmers by allowing for there to be 
training and network support systems as well as funding to make it 
possible for new farmers to survive. I hope that the real effects of 
the policies that this bill puts in place are kept in mind before it is 
passed.
            Sincerely,

Ali Mittelberger.
                                 ______
                                 
                       Comment of Mike Mittenberg
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Astoria, NY
    Occupation: Unemployed
    Comment:

  <bullet> no subsidies for ethanol

  <bullet> label all GMO's

  <bullet> no subsidies for genetic engineering

  <bullet> more money for organic farming

  <bullet> no subsidies for anything ever
                                 ______
                                 
                      Comment of Raymond Mlynczak
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Horsham, PA
    Comment: I would like a fair bill that serves the interests of 
organic farms and farm workers. This bill would not favor farms that 
used GMO's. The people don't want to wait 50 years, like we did with 
tobacco, to learn that GMO's are a hazard to our health. By that time 
there will be no turning back, because due to the reproductive cycle in 
Nature, pollination will have modified all our natural crops.
    There is a body of information currently, even though suppressed or 
ignored, to show the dangers of GMO's to human health, animal health 
and Nature in general to restrict the use of GMO's. The EU and other 
countries already recognize this and have taken actions to protect the 
food supply for all creatures.
    You have the power to change things. Do not act like straw men 
(T.S. Elliot) and sell us all out. Real farmers producing real food 
need you now.
                                 ______
                                 
                       Comment of Anthony Moaton
    Date Submitted: Thursday, May 10, 2012, 10:44 p.m.
    City, State: Oak Park, IL
    Occupation: Student
    Comment: Being someone who formerly had to rely on a SNAP account, 
and has now found themselves in the position to have to use it again, I 
pray that SNAP doesn't get cut. Not just for me and my family, but for 
the many others who need it to survive.
                                 ______
                                 
                         Comment of Valerei Moe
    Date Submitted: Friday, May 18, 2012, 3:33 p.m.
    City, State: Palm Desert, CA
    Comment: Please support Organic Farmers and put Monsanto and other 
GMO /GE companies through tougher regulations to keep them from further 
damaging the U.S. Agriculture, Organic Farmers, U.S. Waters and overall 
environment.
    Thank you!
                                 ______
                                 
                   Comment of Doug Moellering, Ph.D.
    Date Submitted: Friday, May 18, 2012, 2:44 p.m.
    City, State: Birmingham, AL
    Occupation: Research Scientist/Instructor Nutrition Sciences
    Comment: Dear Congress,

    Please value our health and our children's and their children's 
children's health and well being and please seriously consider 
protecting our organic, sustainable agriculture and beginning farmers 
instead of insurance companies and large agribusiness operations which 
have been shown to produce less nutritional products and perform risky 
& harmful farming practices. I support the full endorsement of all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286). I also 
support fully funding conservation programs, such as the Conservation 
Stewardship Program, and making sure that enrollment in any new 
insurance subsidies are tied directly to and held accountable for 
compliance with conservation programs. I support the implementation of 
all provisions of the Beginning Farmer and Rancher Opportunity Act 
(H.R. 3236) and maintaining the EQIP Organic Initiative.
    Please look beyond the lobbying, campaign support promises, money, 
political maneuvering, or whatever may prevent you from objectively 
looking at what is best for us the consumers, the people, the masses, 
and protect our farmers who are growing organic foods or beginning 
farmers who could increase locally available fruits and vegetables!
    As a nutritional research scientist highly motivated and involved 
in counteracting our diabetes and obesity epidemic, I beg you to 
endorse protection for our farmers and strict compliance with 
conservation programs since we are likely victim to their demise 
already.
            Thank you for your time and considerations,

Doug Moellering, Ph.D.
                                 ______
                                 
                       Comment of Alex Mohbacher
    Date Submitted: Friday, May 18, 2012, 12:31 a.m.
    City, State: Esko, MN
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: 50-150 acres
    Comment: Dear Congress,

    I would like to send you my support for organic agriculture in the 
upcoming farm bill. Programs like the OREI and EQIP are vital to our 
operation and food system. Not only do these help organic farmers, but 
I know many conventional farmers find use in these results as well and 
incorporate certain systems born out of the organic field. Thanks for 
thinking of us there!
            Sincerely,

Alex Mohrbacher.
                                 ______
                                 
                        Comment of Anthony Mohen
    Date Submitted: Friday, May 18, 2012, 5:22 p.m.
    City, State: Brooklyn, NY
    Occupation: Legal/Nonprofit
    Comment: We must focus our agricultural policy on supporting local 
and family-owned farms, promoting the consumption of healthy food by 
communities, protecting land for farming (and preventing over-
development and sprawl encroaching on farmland), and empowering 
consumers to choose what they eat by creating labeling of genetically 
modified food and food grown using chemical fertilizers.
                                 ______
                                 
                      Comment of Kathleen Molatch
    Date Submitted: Friday, May 18, 2012, 7:29 p.m.
    City, State: Eastbrook, ME
    Comment: Let's get our priorities straight in this country. It is 
Not big agribusiness that we need to be supporting. They're already 
making profits off the citizens of this country without regard for 
quality of produce unless the government forces regulations on them. 
The small and local farmers who grow organically provide top quality 
produce without the need for chemical pesticides or genetically-
engineered crops. They are in business for themselves . . . remember 
when most businesses were family-run and provided not only quality 
goods but local employment, not to mention a person with whom you could 
interact who wasn't based in a foreign country by telephone? Please get 
it right with this bill. Thank you.
                                 ______
                                 
                         Comment of Sally Mole
    Date Submitted: Sunday, May 20, 2012, 5:02 p.m.
    City, State: Arlington, VT
    Occupation: Small Farm Consultant
    Comment: Our small diversified farms and locally grown foods 
movement is growing by leaps and bounds. This sector of our 
agricultural system should be encouraged and supported in our farm 
bill. It is healthful, efficient, conserves our farmland and supports 
our communities.
                                 ______
                                 
                       Comment of Peter G. Moller
    Date Submitted: Sunday, May 20, 2012, 9:28 p.m.
    City, State: Traverse City, MI
    Occupation: Retired Professor
    Comment: Dear Members of House Committee on Agriculture:

    I am concerned that the food system in our country appears to be 
broken, both from the consumer and producer ends of the spectrum. We 
live in a country where quality food, especially fruits and vegetables, 
referred to as specialty crops, has become economically out of reach 
for a growing segment of our population, and consequently the health of 
our nation. As you consider what needs to be cut in the 2012 Farm Bill, 
I urge you to not let the growing poor pay for these deficit reduction 
measures. The Food Stamp program has overall been a success and should 
not be reduced in size.
    I urge you to consider the interests of the small and independent 
farmer, who over the last few decades has not been able to compete with 
large agribusiness. The large farmer has been receiving Federal 
subsidies for commodity crops, such as corn, soy beans, rice, cotton, 
and wheat, while the small producer is increasingly going out of 
business.
    Market manipulation, monopoly control over seeds, and enforcement 
of anti-trust laws are all issues that need to be addressed to increase 
competition in the food production sector of our economy. The plight of 
the small farmer can also be alleviated by continuing to fully fund the 
Conservation Reserve Program.
    It is the health of our country that is at risk, and thus our 
national security. The profits of a small number of large corporations 
should not get in the way of the well being our nation.
    Thank you for your consideration.
            Sincerely,

Peter G. Moller.
                                 ______
                                 
                        Comment of Renee Moller
    Date Submitted: Friday, May 18, 2012, 5:10 p.m.
    City, State: Vancouver, WA
    Occupation: Disabled
    Comment: I am discovering, daily, that the illness I have that has 
placed me on disability and which Drs and Big Pharma can't ``fix,'' nor 
find a cause of, can Not be taken care of by more and more drugs (which 
Big Pharma wants to shove down my throat), nor more testing (which is 
all the traditional medical community can offer); however, if I eat 
strictly organic (as well as weeding a few other dietary foods from my 
system), non-processed foods, I am slowly getting better. Without food 
labeling, better access to these foods, and an understanding that 
whole, healthy, pesticide- , hormone- and GMO-free food, if that is 
what one wishes to put in one's body, is as important as safe water and 
air, and should be just as vital.
                                 ______
                                 
                        Comment of Kathy Moloney
    Date Submitted: Saturday, May 19, 2012, 7:44 a.m.
    City, State: Grosse Pointe, MI
    Occupation: Health Educator
    Comment: I strongly urge you to provide our country with a reformed 
farm bill that stops providing massive subsidies to corporate farmers, 
and instead supports smaller local farms (H.R. 3286) true care and 
conservation of soil and land; support for new farmers (H.R. 3236) and 
assistance to organic farming. As all of you know, the farm bill has 
great importance to what our Food System will be in our country and the 
food we all will eat. You are accountable.
                                 ______
                                 
                        Comment of Kelly Moltzen
    Date Submitted: Saturday, May 19, 2012, 3:48 a.m.
    City, State: Bronx, NY
    Occupation: Public Health Professional/Registered Dietitian
    Comment: As the Committee considers the 2012 Food and Farm Bill, I 
urge you to:

    Preserve and expand funding for the Healthy Food Provisions Package 
which includes policies and programs supporting public health. These 
programs, which successfully help improve access to healthy food for 
low-income communities, include:

  <bullet> Senior Farmers' Market Nutrition Program

  <bullet> Fresh Fruit and Vegetable Program

  <bullet> Farmers' Market Electronic Benefits Transfer Program

  <bullet> Healthy Urban Food Enterprise Development

  <bullet> Community Food Projects

  <bullet> SNAP Nutrition Education Program (SNAP-Ed)

  <bullet> Also, the WIC Farmer's Market Nutrition Program--which 
        promotes nutrition while successfully creating a customer base 
        for farmers at farmer's markets--belongs under the farm bill 
        instead of under Child Nutrition Reauthorization;

  <bullet> Next, provide an even ``plowing'' field by fully funding 
        programs supporting beginning and socially disadvantaged 
        farmers and ranchers, organic farming, regional farming and 
        food economies, and rural development. We need more farmers and 
        ranchers, more sustainable food production, and more economic 
        opportunity in our food system;

  <bullet> Fourth, end direct payments and countercyclical commodity 
        programs, replacing them with loophole-free agriculture risk 
        coverage and implement a cap on crop insurance premium 
        subsidies. We must support farmers that really need the help, 
        not the biggest farms that don't;

  <bullet> And last, eliminate the Environmental Quality Incentives 
        Program (EQIP) livestock set-aside to limit funds granted to 
        concentrated animal feeding operations (CAFOs) for waste 
        management infrastructure and protect the Conservation 
        Stewardship Program (CSP) from disproportionate cuts and 
        improve it by ranking applications solely on their conservation 
        benefits. We must ensure that limited conservation funding 
        maximizes lasting environmental benefits.

    Thank you.
                                 ______
                                 
                       Comment of Shannon Mondor
    Date Submitted: Saturday, May 19, 2012, 1:28 p.m.
    City, State: Arcata, CA
    Occupation: College Writing Teacher
    Comment: Please be aware that I propose the full endorsement of all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286).
    I encourage fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I desire the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    I also support maintaining the EQIP Organic Initiative.
    The country needs to focus more energy, money, and support on local 
and sustainable farming so that we achieve true food security. 
Industrialized food production is not healthy for the people, the 
animals, or the planet upon which we depend for our continued 
sustenance. We are seeing the dramatic negative health impact across 
the spectrum, a serious and violent cost of allotting public money to 
subsidize the wrong kinds of farming and growing practices. We need a 
new Victory Garden campaign for the new century, so that people are 
once again connected to the source and sustenance of their food 
systems, can identify and nurture actual foods of their own, and are 
free from dependence on the industrial food machine that only has 
profits rather than health in the forefront of its decisions and 
actions. GMOs Must be labeled, if not banned outright. Please do keep 
your minds on the sanctity of the American rights to true freedom to 
choose and be informed.
                                 ______
                                 
                         Comment of Carol Mone
    Date Submitted: Friday, May 18, 2012, 7:50 p.m.
    City, State: Trinidad, CA
    Occupation: Educator
    Comment: Factory farms should be regulated as industry, not 
agriculture. Farms should be defined as agriculture--producing crops or 
animals on Land. We need to end subsidies and replace them with 
loophole-free agriculture risk coverage. Additionally, implement a cap 
on crop insurance premium subsidies. We need to fully fund programs 
that support beginning farmers and ranchers, organic farmers, and rural 
development. We need more farmers more sustainable food production, and 
more economic opportunity in our food system!
                                 ______
                                 
                        Comment of Barbara Money
    Date Submitted: Friday, May 18, 2012, 4:52 p.m.
    City, State: Foster, RI
    Occupation: Self-Employed
    Comment: The farm bill needs to take into consideration the wishes 
of the American people for sustainable food production and cut back the 
subsidies to Big Ag corporations. Organic farming needs to be 
encouraged if we are ever to restore our soils. We need to make it 
easier for new farmers and family farms to make a living without tons 
of bureaucratic red tape. I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Ann Mongoven
    Date Submitted: Thursday, May 17, 2012, 4:26 p.m.
    City, State: Saint Paul, MN
    Occupation: Self-Employed
    Comment: I believe the 2012 Farm Bill must work for the health and 
safety of all. Support must be given to re-structure the ag system to 
all more local and organic production.
                                 ______
                                 
                         Comment of Kim Monjoy
    Date Submitted: Sunday, May 20, 2012, 9:39 p.m.
    City, State: New York, NY
    Occupation: Admin. Manager
    Comment: This is my most important issue. I need to know what I'm 
eating (label it) Is it safe not fake no genetically modified food. 
Allow small farmers the chance to use real seed and survive.
                                 ______
                                 
                        Comment of Gloria Monroe
    Date Submitted: Friday, April 27, 2012, 7:36 p.m.
    City, State: Paris, TN
    Occupation: Retired
    Comment: I am all in favor of families being able to have food 
everyday! I would like to see certain items excluded from the food 
stamp program, sodas, cookies, chips, sugary cereals, toaster pastries, 
doughnuts etc. basically the items that offer very little if any 
nutritional value! I have witnessed many times people using an EBT card 
in front of me in the store and the majority of their purchase is the 
above mentioned items! I have even seen a store decorated cake being 
bought with an EBT card at the cost of $32.00! How in the world is this 
justified? The money being used for these items are preventing the 
family from having a balanced nutritional diet in my opinion! Thank you 
for allowing me to express my opinion!
                                 ______
                                 
                       Comment of Richard Monroe
    Date Submitted: Thursday, May 10, 2012, 10:05 a.m.
    City, State: Rochester Hills, MI
    Occupation: Retired Senior Citizen
    Comment: The farm bill must be structured in a way which protects 
seniors and children from hunger. We must strive to get our priorities 
in order--eliminating hunger trumps making a new Star Wars Defense 
System on the East Coast.
                                 ______
                                 
                       Comment of Ariel Monserrat
    Date Submitted: Friday, May 18, 2012, 12:29 p.m.
    City, State: Sneedville, TN
    Occupation: Retired
    Comment: No chemicals or pesticides, organic is always best as it 
has more nutrients and doesn't harm any wildlife i.e., bees, etc. Quit 
harassing small farmers. I'm for whatever helps to support our farmers 
in producing healthy food. The man I buy hay from had the USDA come to 
his house basically to harass him. This Has To Stop! Raw milk is highly 
important to our health and must be made available to all.
                                 ______
                                 
                         Comment of Ruth Monson
    Date Submitted: Friday, May 18, 2012, 6:48 p.m.
    City, State: Louisville, KY
    Occupation: Social Work
    Comment: Please mandate that all GMOs must be labeled! Americans 
have the right to know what we are eating. We have the right to decide 
what goes in our bodies. Huge agricultural corporations have had way 
too much power in deciding what we eat and the lack of healthy, quality 
food has contributed to our obesity epidemic and many other health 
problems. Also, organic farming needs as much support as possible. 
Please put the health of our nation before the interest of corporate 
America. Thank you.
                                 ______
                                 
                      Comment of Julianne Montano
    Date Submitted: Sunday, May 20, 2012, 7:17 p.m.
    City, State: Tucson, AZ
    Occupation: Health Advisor
    Comment: As a Health Advisor for a Corporate Wellness company, I 
have the opportunity to speak with thousands of citizens across the 
country. These citizens range in age from 20-65 years old, some of them 
are in decent health, but most are unhealthy--with either obesity and 
poor eating habits, or a chronic illness or disease. It is critical for 
our government to stop turning a blind eye to what is happening with 
the agriculture system and corporations like Monsanto who negligently 
continue to create products that harm human health. If you sit in a 
position of power where your vote counts towards the ability to create 
change and improve the health of our citizens, you are obligated to 
wake-up and vote with integrity for choices that will help people 
thrive. Stop turning a blind eye to what is happening with Farming.
                                 ______
                                 
                        Comment of Lisa Montanus
    Date Submitted: Sunday, May 20, 2012, 10:41 a.m.
    City, State: Woodstock, NY
    Occupation: Educator
    Comment: Please support all provisions, acts and initiatives that 
support local, organic agriculture and the farmers that grow this food.
                                 ______
                                 
 Submitted Statement by Darrin Monteiro, Director of Member Relations, 
                        California Dairies, Inc.
    Congressman Costa, Congressman Cardoza (and other members of the 
Listening Panel):

    Good morning. My name is Darrin Monteiro and I hold the position of 
Director of Member Relations for California Dairies, Inc. (``California 
Dairies''), whom I am representing here today. California Dairies is a 
full-service milk processing cooperative owned by approximately 420 
producer-members located throughout the State of California. Our 
producer-members collectively produce over 17 billion pounds of milk 
per year, or 43% of the milk supply in California. Our producer-members 
have also invested over $500 million in large processing plants at six 
locations. My presentation is consistent with the direction on national 
dairy policy approved by the California Dairies' Board of Directors.
    We appreciate your willingness to hold this listening session to 
gather information from a wide variety of companies that collectively 
represent California agriculture and hope to leave you with a sense of 
the topics that resonate strongly with our producer-members.

    Position on Recent Announcements for National Dairy Policy Changes

    In 2011, Congressmen Peterson and Simpson introduced legislation 
that placed National Milk Producers Federation's ``Foundation for the 
Future'' proposal into a legislative format. While the California 
Dairies Board of Directors have not taken a formal position on H.R. 
3062, The Dairy Security Act of 2011 (DSA), the Board did approve a 
position statement on Congressman Peterson's ``Discussion Draft'', 
which largely opposes the elements contained in the document. While the 
DSA corrects some of the flaws from Congressman's Peterson's 
``Discussion Draft'', it still contains provisions that would 
negatively impact California Dairies by imposing restrictions on its 
business model. Other provisions have the potential of treating the 
producer-members of California Dairies disproportionately worse than 
other dairy producers in the U.S.

    Four Main Points on National Dairy Policy:

    1. California Dairies is supportive of margin insurance as a stand-
        alone program. The dairy title of the next farm bill should 
        include risk management tools. Dairy producers have been 
        working toward developing some proficiency with hedging and 
        forward contracting in milk and feed markets, both of which are 
        characterized by extreme price volatility. In recent times, the 
        discussion of traditional risk management has changed to 
        discussions on ``margin management'' and ``margin insurance''. 
        We applaud those in Congress who have taken the time to 
        conceive alternative programs for dairy producer margin 
        insurance.

    There are two aspects embedded in some of the proposed margin 
        insurance programs that need further refinement or 
        modification. First, the trigger mechanism for margin insurance 
        is a milk price-to-feed cost calculation that uses national 
        data. However, every region of the U.S. will have its own 
        ``implied margin'', depending on prevailing milk prices and 
        feed costs. With California being an area with relatively low 
        milk prices and relatively high feed costs, there is a very 
        good chance that the national calculation will not be activated 
        timely enough to be helpful for California dairy producers. 
        Second, recent proposals have offered a two-tiered premium 
        schedule to purchase supplemental margin insurance. Basically, 
        the lower cost premium schedule applies to the milk produced by 
        a dairy's first 150 cows. Thus, a small dairy can expect to pay 
        considerably less in margin insurance premiums than a large 
        dairy under any comparable circumstances. Both of these faults 
        should be corrected to remove the biases against large dairy 
        farms and against dairy farms that are located in high feed 
        cost areas.

    2. We continue to support the elimination of export subsidies and 
        correction of inequities in market access and domestic support. 
        In the past few years, the U.S. dairy industry has been shown 
        quite clearly how important international trade has become. 
        Export sales have grown to represent 12% to 15% of U.S. product 
        sales, and we must continue to grow that aspect of the U.S. 
        dairy industry.

    3. California Dairies supports the elimination of the MILC program 
        and diverting those funds to support alternative dairy 
        programs. During the formulation of the 2002 Farm Bill, 
        Congress enacted the Milk Income Loss Contract (MILC), which 
        makes direct payments to dairy producers when milk prices fall 
        below specified levels. The 2008 Farm Bill modified the MILC 
        slightly but not enough to change the fact that it benefits 
        smaller dairy producers disproportionately more than larger 
        producers. Again, biases against large dairies need to be 
        removed.

    4. Federal policies that favor fuel over food must be changed. The 
        basic theme for dairy producers since 2009 has been one of 
        survivability. The largest influence in recent times has been 
        the skyrocketing cost of feed. In the last 2 years, the 
        California dairy industry found out what happens when 
        unanticipated influences and subtle shifts in national policy 
        come to pass--the focus on ethanol as a fuel alternative, a 
        weak dollar and high demand for grains from other countries. 
        California dairying relies heavily on what used to be 
        inexpensive feeds that were shipped in from the Midwest, and 
        there are few tools or strategies readily available to protect 
        dairy producers from higher costs of feed, which represents 
        almost 60% of the cost of producing milk in California.

    The national policy favoring fuel over food, particularly the 
        Renewable Fuel Standard, must be changed. Whether or not the 
        farm bill is the appropriate place to tackle such a weighty 
        issue may be debatable. However, with feed costs being the most 
        challenging aspect affecting California dairy producer 
        viability, we must make the arguments against the Federal 
        ethanol program whenever and wherever we can.

    In the interest of time, I will just briefly mention that we would 
support the availability of low interest loans and tax-deferred savings 
accounts for dairy producers and the reauthorization of the 
Environmental Quality Incentives Program, which provides technical 
assistance and financial cost-sharing in exchange for implementing 
conservation practices on agricultural lands.
    Thank you for allowing me the opportunity to share these thoughts 
with you today.
                                 ______
                                 
                   Comment of Chris Ellen Montgomery
    Date Submitted: Saturday, May 19, 2012, 9:29 p.m.
    City, State: San Francisco, CA
    Occupation: Gardener
    Comment: I'm very concerned about the health of our soil, as well 
as the importance of being good stewards of the land. This is best done 
with a combo of organic & conventional methods with an emphasis on IMP 
Not GMO. GMOs are wreaking havoc on life itself . . . They are Not any 
part of the answer . . .
    More money for conventional to organic farm conversions . . .
                                 ______
                                 
                     Comment of Deborah Montgomery
    Date Submitted: Wednesday, May 16, 2012, 11:05 a.m.
    City, State: Champaign, IL
    Comment: Please preserve funding for the Food for Peace Development 
at the current level. Please oppose cuts to SNAP, CSFP and TEFAP. 
Maintain funding for the Value-Added-Producer grants.
                                 ______
                                 
                      Comment of Edith Montgomery
    Date Submitted: Friday, May 18, 2012, 5:27 p.m.
    City, State: Ashland, OR
    Occupation: Retired
    Comment: I want to eat healthy food not contaminated with 
pesticides and chemicals. Small farmers work hard to raise healthy 
food. They need to be supported. Big Ag makes enough money. It doesn't 
need more subsidies. Cutting money for Food Stamps and other food 
delivery programs is just plain wrong. Please write and pass a farm 
bill that benefits the people, not Big Ag corporations.
                                 ______
                                 
                     Comment of Lanelle Montgomery
    Date Submitted: Friday, May 18, 2012, 6:43 p.m.
    City, State: Austin, TX
    Comment: Please listen to the small farmers. We deserve to have 
``real'', unadulterated, nutritious food. There are undoubtedly many 
items which need to be cut, but not funding for nutrition, for 
supporting organic farmers and for other programs which assure high 
qualified, non-genetically modified foods. It doesn't matter how much 
money, status, big houses, etc. that one owns, if we are unable to get 
good nutritious food, we are killing ourselves and our children.
                                 ______
                                 
                       Comment of Lynn Montgomery
    Date Submitted: Friday, May 18, 2012, 4:19 p.m.
    City, State: Placitas, NM
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: I am a small organic market farmer and am a supervisor on 
our local soil and water conservation district. (a volunteer position) 
It seems that big money, in the form of big corporations and their 
ability to buy undue influence makes me something very expendable and 
worthless in your eyes. I am an American. I pay taxes. I work hard to 
grow good, wholesome food for my fellow Americans. Your actions have 
been more than grossly unfair and destructive to honest citizens like 
myself. Hopefully, you will tap into your basic sense of fairness and 
give us our fair share, and stop making it impossible for us to exist.
                                 ______
                                 
                      Comment of Patti Montgomery
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: Fort Bragg, CA
    Occupation: Retired Bodyworker
    Comment: My father was a produce broker, and I worked in his 
office, so am somewhat familiar with the commercial food production 
business. As a bodyworker, a significant portion of my training 
involved nutrition, and I have continued this research to the present 
day. I can tell you this--today's food, grown by Big Ag, chemically 
fertilized, genetically altered, and processed beyond recognition, is 
not only devoid of all nutrition, but a monumental health hazard, all 
by itself. I have not consumed it for decades, opting for organic (and 
local, when possible) instead. And guess what? I'm not plagued with any 
of the ``diseases'' typically suffered by my contemporaries. I would 
encourage you all to support organic agriculture with the strictest 
standards, to ban GMOs from our crops, stop with the chemical 
fertilizers. Chemical fertilizers have killed our soil, leaving our 
crops devoid of nutrition, since the end of WWII. I could go on and on.
                                 ______
                                 
                         Comment of Jane Moodie
    Date Submitted: Friday, May 18, 2012, 5:33 p.m.
    City, State: Eugene, OR
    Producer/Non-producer: Producer
    Type: Bioenergy, Dairy, Forestry, Greenhouse/nursery, Livestock, 
Poultry/poultry products, Specialty Crops
    Size: Less than 50 acres
    Comment: Small farms have started feeling like targets, with so 
many efforts being made to hamstring them, restrict them, starve them, 
even criminalize them. ``Organic'' is assigned a woo-woo status, while 
big bucks are thrown at the guys spreading Roundup, and now 2-4-D, on 
our soil, in our water, and in our food. Our priorities have been 
seriously misplaced and profoundly harmful. People have less access to 
safe, nourishing food than ever before, and the occurrence of disease 
gets more and more common every year. This is exactly the opposite of 
what should be happening. Subsidies to industrial agriculture need to 
be stopped. They provide nothing helpful any more, except to those 
getting their pockets lined. Incentive monies need to be placed where 
they will provide benefit for consumers, in the form of fresh, clean, 
safe, health-promoting foods, and modest incomes for many small 
farmers.
                                 ______
                                 
                         Comment of Allen Moody
    Date Submitted: Friday, May 11, 2012, 11:24 a.m.
    City, State: Viroqua, WI
    Occupation: Organic Inspector
    Comment: Please fund the following programs at the highest level 
possible:

  <bullet> National Organic Program

  <bullet> Organic Agriculture Research and Extension Initiative

  <bullet> Beginning Farmer and Rancher Development Program

  <bullet> Conservation Stewardship Program

  <bullet> Value-Added Producer Grants Program

    Please provide focus on HEALTHY food for our children in schools. 
Make It Illegal To Sell Junk Food In Our Schools!
    It's about time to get the words Family Farm in the Food Security 
Act. Every Family Farm is a Business that pays taxes to its local 
community. The Profits Stay In The Community. Family Farms Are As 
American As Apple Pie.
    Support programs that allow farmers to Raise Their Own Fuel!
    Get It?!
                                 ______
                                 
                        Comment of Nathan Moomaw
    Date Submitted: Friday, May 18, 2012, 8:13 p.m.
    City, State: Portland, OR
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: Please fully fund programs that support beginning and 
socially disadvantaged farmers and ranchers, organic farming, regional 
farm and food economies, and rural development. We need more farmers 
and ranchers, more sustainable food production, and more economic 
opportunity in our food system. As a 32 year old trying to get my own 
pasture-raised livestock ranch started, I feel like the deck is stacked 
against me in a number of ways. Financing is a really big hurdle for 
people like me who are trying to start from scratch. New farmers, 
especially those attempting to serve non-commodity markets, need easier 
access to small amounts of capital. I have heard of many young farmers 
who have been unable to receive loans from the FSA because the FSA is 
oriented primarily towards helping large farms that produce commodity 
crops. We need more new direct-to-customer, small-scale, humane, and 
environmentally-friendly farms, and the government should be actively 
supporting these types of start-ups.
    Please support family farmers that actually need help, not the 
biggest farms that don't: End subsidies (aka direct payments and 
countercyclical commodity programs), and replace them with loophole-
free agriculture risk coverage. Additionally, implement a cap on crop 
insurance premium subsidies. Subsidies have evolved into something that 
no longer provides the right incentives for agriculture in this country 
and have created a situation that isn't good for farmers, nor for 
consumers. We should be providing incentives for farmers to be more 
environmentally responsible.
    Please ensure that limited conservation funding maximizes lasting 
environmental benefits: Limit funds to Concentrated Animal Feeding 
Operations (CAFOs) for animal waste management infrastructure by 
eliminating the Environmental Quality Incentives Program (EQIP) 
Livestock Set-aside and protect the Conservation Stewardship Program 
(CSP) from disproportionate cuts, and improve it by ranking 
applications solely on their conservation benefits. Making agriculture 
more environmentally-friendly should be one of our primary methods of 
protecting this country's ecosystem services and natural resources.
                                 ______
                                 
                      Comment of Elizabeth Mooney
    Date Submitted: Sunday, May 20, 2012, 5:29 p.m.
    City, State: Forest Hills, NY
    Occupation: Housewife
    Comment: As a taxpayer and food consumer, I would like the limited 
amount of Federal agriculture dollars available to be used wisely. 
First and foremost, we don't need to subsidize wealthy, conglomerate 
agribusinesses. They are doing just fine. We need to help and promote 
smaller farmers and to promote farmland conservation and farmland 
stewardship.
                                 ______
                                 
                         Comment of Len Mooney
    Date Submitted: Friday, May 18, 2012, 3:04 p.m.
    City, State: Bangor, PA
    Occupation: Musician
    Comment: My wife is an organic farmer so I know firsthand the 
importance of good healthy food. Being aware of where my food comes 
from and how it's grown is critical. With the influx of GMO products 
being slipped in to our food supply without labeling and our knowledge 
I believe is criminal. My question for corporations like Monsanto and 
Dow if GMO products are so good for us why not label them and let the 
consumer decide.
                                 ______
                                 
                        Comment of Alissa Moore
    Date Submitted: Sunday, May 20, 2012, 10:22 p.m.
    City, State: West Bend, WI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. My name is Alissa 
Moore, I am 31 years old and this will be my 6th farming season. I 
currently manage a nonprofit farm in Southeastern Wisconsin. I chose to 
manage this farm instead of attempting to start my own farming 
business, because of the very high price of land, and the large amount 
of capital needed to start a small scale (or any scale) farming 
operation. With all of the handouts the U.S. government provides to 
commodity farmers in the farm bill, I believe it's only fair that the 
Committee endorse all of the provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Alissa Moore.
                                 ______
                                 
                         Comment of Brian Moore
    Date Submitted: Friday, May 18, 2012, 12:29 p.m.
    City, State: New Hampton, IA
    Occupation: County Conservation Board Director
    Comment: In these days of high crop values, we need to consider 
conservation programs more than ever. Do not decrease the value of what 
will encourage farmers to enter into conservation programs. I am not 
sure I agree with all the subsidies farmers get, but if that is what it 
takes to keep them interested in conservation programs, then let's do 
it.
                                 ______
                                 
                        Comment of Carrie Moore
    Date Submitted: Friday, May 18, 2012, 3:36 p.m.
    City, State: Littleton, CO
    Occupation: Stay-at-Home Mom
    Comment: Decisions that are made now will affect our food supply 
for many years to come. As an educated consumer I would like to see the 
government support more small family owned farms.
                                 ______
                                 
                        Comment of Emilie Moore
    Date Submitted: Saturday, May 19, 2012, 12:01 a.m.
    City, State: Austin, TX
    Occupation: Scientist
    Comment: I would like to see subsidies directed toward practices 
that are both environmentally sustainable and promote good health--
fruit and vegetables instead of meat, and organic/sustainable 
production instead of large-scale commercial agriculture.
                                 ______
                                 
                         Comment of Emily Moore
    Date Submitted: Wednesday, May 02, 2012, 10:41 a.m.
    City, State: San Francisco, CA
    Occupation: Student
    Comment: Hello,

    Below are some priorities that I would like to see included in the 
farm bill:

  <bullet> encourage environmental sustainability by increasing funding 
        for conservation programs that help farmers manage soil and 
        water resources.

  <bullet> disincentivize environmentally harmful farming practices. 
        Changes in agriculture practices are a cost-effective and 
        straight-forward way to improve water quality.

  <bullet> increase funding for new farmers through the Beginning 
        Farmer and Rancher Development Program. Five times as many 
        American farmers are over 65 years of age than are under 35 
        years of age. We need more money to encourage young stewardship 
        of the land.

  <bullet> increase funding for the Farmers' Market and Local Food 
        Production Program

  <bullet> increase subsidies for ``specialty crops'' like fruits and 
        vegetables.

    Thank you!
                                 ______
                                 
                        Comment of Lauren Moore
    Date Submitted: Friday, May 18, 2012, 12:59 p.m.
    City, State: Greenwood, IN
    Occupation: Material Handler
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    The more I have researched, the more I see that the government's 
agenda is to cut funding from the poor to fill the pockets of the rich. 
Put an end to the selfishness. Put an end to the unhealthy food 
practices. Start taking the steps to positively impact our local 
farmers and the everyday consumers in this country. We can make a 
change, but it starts with our health. Keep this country healthy by 
allowing us full access to organic food and ridding us of these big 
business agendas. Please put the people first. Thank You.
                                 ______
                                 
                        Comment of Leslie Moore
    Date Submitted: Saturday, May 19, 2012, 11:44 p.m.
    City, State: Shoshone, ID
    Occupation: Nurse and Gardener, Former Goat Keeper
    Comment: Organic soils perform much better in drought and flood 
conditions because there is a complex food web in natural soil. So 
organic soil is the best crop insurance, does this make sense? Please 
start to care about the health of soil and our children--there is an 
epidemic of autism and it needs to get figured out, start testing for 
levels of pesticides in the population even if pesticide makers don't 
want it. Be for the people, not just for business as usual, please I 
beg you, do you want to have autistic relatives?
                                 ______
                                 
                       Comment of Lorraine Moore
    Date Submitted: Saturday, May 19, 2012, 1:26 p.m.
    City, State: San Antonio, TX
    Occupation: Artist
    Comment: Subsidizing industrial agriculture with its pesticides, 
chemical fertilizers and genetic engineering is not in the best 
interest of the American people. Instead of adopting policies that 
deplete the soil and kill bees and other insects that pollinate 
naturally, I urge you to support organic research and best agricultural 
practices. Small organic farmers need government support and 
encouragement so that many more people will start their own small farms 
near cities and suburbs and continue to make inroads toward sustainable 
farming.
                                 ______
                                 
                         Comment of Lynn Moore
    Date Submitted: Saturday, April 28, 2012, 7:52 a.m.
    City, State: Woodbine, MD
    Producer/Non-producer: Producer
    Type: Fruits
    Size: 151-300 acres
    Comment: The funding of research for fruits and vegetables has been 
crucial for the mid-Atlantic area farmers. The attack from the Brown 
Marmorated Stink bug and the Spotted Wing Drosophila have devastated 
many farms. The lead scientists working on the problem are at the 
Appalachian Fruit Research Station in West Virginia. Without farm bill 
funding the research would not have been done. Much more damage would 
have occurred and continue to occur. This would lead to bankrupt 
farmers. This soil is too fertile and too precious to lose to invasive 
insects. The development pressure is already too much. Crop losses just 
make it worse. These invasive insects can occur at any time. So funding 
needs to be available. A safe affordable food supply is the basis for 
our modern society. Just because we have an abundant safe food supply 
today, don't cut the funding that will determine tomorrow's food 
supply. Fruit farmers need to be planning about 10 years ahead to stay 
in production. The scientist that support the fruit industry need to be 
about 20 years ahead of the farmer. So funds cut today will seriously 
affect today and the next 3-5 decades. We all need to eat today and 
tomorrow. Thanks.
                                 ______
                                 
                        Comment of Michele Moore
    Date Submitted: Friday, May 18, 2012, 1:15 p.m.
    City, State: Alstead, NH
    Occupation: Physician
    Comment: We need a farm bill that recognizes the need for 
sustainable agriculture, ensuring the health of the consumer, the land, 
and enabling this country to have a diversified and vigorous 
agriculture. The bill should stop favoring agribusiness at the expense 
of the family farmer and should support regional agriculture so that we 
can all eat the freshest food, grown closest to home.
                                 ______
                                 
                         Comment of Terri Moore
    Date Submitted: Friday, May 18, 2012, 3:01 p.m.
    City, State: Portland, OR
    Occupation: Meeting Planner
    Comment: Please stop the subsidies to big business farms that 
create problems with the diets of millions of people. Provide the 
citizens with fresh, healthy, local food choices. No corn syrup 
subsidies, no pink slime subsidies. Yes to organic, yes to small 
farmers.
                                 ______
                                 
                       Comment of Rachel Moorman
    Date Submitted: Friday, May 18, 2012, 1:22 p.m.
    City, State: Greenwood, IN
    Occupation: Former TV News Producer, now Stay-at-Home Mother
    Comment: Cutting funding for organic food research and small/
beginning farmers, while propping up existing ``food'' magnates cannot 
stand! I rely on small farmers growing excellent food to feed my family 
. . . This is by far the majority of food we eat, and my family is 
healthier and rarely sick because of it. Supporting organic food 
creates a chain reaction of healthy living that will impact the health 
of the entire nation. I support:

  <bullet> funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs;

  <bullet> the implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236);

  <bullet> maintaining the EQIP Organic Initiative.

    Please do not betray the lives and health of every American!
                                 ______
                                 
                       Comment of Mary Etta Moose
    Date Submitted: Friday, May 11, 2012, 12:38 p.m.
    City, State: San Francisco, CA
    Occupation: Retired Restaurateur
    Comment: The next farm bill should include encouragement and aid to 
organic producers; Mandatory $30 million funding of the Organic 
Agriculture Research and Extension Initiative; $25 million/yr for the 
Beginning Farmer & Rancher Development Program; protect the 
Conservation Stewardship Program from unfair funding cuts; support 
VAPG; provide flexibility for states to use food procurement programs 
to buy from local producers.
                                 ______
                                 
                         Comment of Jana Moran
    Date Submitted: Friday, May 18, 2012, 2:21 p.m.
    City, State: Anchorage, AK
    Occupation: Writer/Photographer
    Comment: Please, please please listen to the people of this great 
country who are concerned about our farms, fields, workers and Our Food 
Supply. This choice is so simple, we either trash the land or save and 
nurture the land God gave us. WWJD?
            Thank you,

Jana Moran.
                                 ______
                                 
                       Comment of Patrica Morford
    Date Submitted: Friday, May 18, 2012, 11:34 a.m.
    City, State: Logsden, OR
    Producer/Non-producer: Producer
    Type: Dairy
    Size: Less than 50 acres
    Comment: Small dairy producers need help. We are licensed legal 
producers of healthy food but we are burdened with unfair competition 
from huge corporations and imports.
                                 ______
                                 
                      Comment of Alexandra Morgan
    Date Submitted: Friday, May 18, 2012, 5:09 p.m.
    City, State: Saratoga Springs, NY
    Occupation: Landscape Architect
    Comment: I believe in the small farmer who is closer to the rhythm 
of his land than big corporate farms. And concentrated feed lots are a 
hazard to everyone's health, let alone being inhumane.
                                 ______
                                 
                        Comment of Angel Morgan
    Date Submitted: Thursday, May 17, 2012, 2:18 p.m.
    City, State: Hartford, CT
    Occupation: Student
    Comment: As a junior in college, I feel that the SNAP program helps 
plenty of families who get help with their kids. What type of human 
being would do such a horrible thing such as that. It's not fair to 
those who need SNAP to survive. I feel that instead of taking programs 
away you, Congress, should be adding things like jobs and more 
education for our youth so that they can stop killing one another.
                                 ______
                                 
                         Comment of Bill Morgan
    Date Submitted: Friday, May 18, 2012, 7:38 p.m.
    City, State: Fairfield, IA
    Occupation: Software Programmer
    Comment: The U.S. needs thorough biotechnology regulation that 
includes mandatory labeling for genetically engineered food (a 
requirement that 90% of Americans want and that 50 other countries, 
including Russia/China/EU already have).
    Genetic Engineering is a subtle and powerful science, but it is 
also an infant science. The U.S. is currently not adhering to the 
Precautionary Principle, is not providing adequate oversight of the 
Biotech Industry, and so what is being sold as a Green Revolution is 
actually more like a Greed Revolution.
    In addition, there should be far more legislated and enforced 
distance between Biotech Industry interests and the U.S. Government 
agencies that regulate it. The influence of Monsanto et al. on the 
current Administration, Congress, USDA/FDA is deplorable. We are not a 
Corporatocracy; we are a Democratic Republic.
    Remember that we are of-by-for the People, not of-by-for Monsanto, 
Dow Chemical, and Dupont.
    Thanks for listening . . .

Bill Morgan,
Iowa.
                                 ______
                                 
                     Comment of Christopher Morgan
    Date Submitted: Saturday, May 19, 2012, 7:09 p.m.
    City, State: Los Angeles, CA
    Occupation: Hospital Admissions Rep.
    Comment: I want an organic farm bill. I want a bill that's 
effective and that actually focuses on correcting the years of abuse 
we've experienced from hypocritical politicians and the bogus policies 
they've endorsed.
    We must maintain the EQIP organic initiative.
    We must ensure that any new insurance subsidies are directly tied 
to compliance with conservation programs.
    We must provide the complete funding requirements of conservation 
programs, such as the Conservation Stewardship Program.
    We must implement all the provisions of the Beginning Farmer and 
Rancher Opportunity Act.
    We must fully and endorse and support all of the provisions of the 
Local Foods, Farms, and Jobs Act.
    There is currently a very large population of native born Americans 
and immigrants that are truly fat, sick, and dying from many of the 
choices that have been made by politicians who've chosen money over the 
best interest of the people. How can we continue to live in a world 
where people are used as road blocks, door stops, and pin cushions?
    Without positive and progressive change we will fade away as a once 
great nation into the infinite abyss and in a matter of time humans 
will cease to exist anywhere on the entire planet while the cockroaches 
eat the organic food that nature produces after we're all gone.
                                 ______
                                 
                       Comment of William Morgan
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Baker, FL
    Occupation: Technology
    Comment: We the people need you to be our voice concerning our 
health from food and sustainability in true organic food crops. This is 
your job--to represent our voice.
                                 ______
                                 
                       Comment of Richard Morgese
    Date Submitted: Friday, May 18, 2012, 2:09 p.m.
    City, State: San Francisco, CA
    Occupation: Medical Doctor
    Comment: Evidence grows daily about the dangers of this unbridled 
and untested GMO experiment. Why is our government protecting big 
business instead of the populace? I'm stunned, witnessing a Sci-Fi 
horror story of some corrupt civilization destroying its future for 
some false short term gain. Toxic food as long as it's cheap?!
                                 ______
                                 
                        Comment of Toochis Morin
    Date Submitted: Friday, May 18, 2012, 4:17 p.m.
    City, State: Los Angeles, CA
    Occupation: Agent
    Comment: Please stop catering to big agro like Monsanto and GE and 
their GMO products and pesticides. You are destroying the farmers' 
livelihood, health and our planet. Please refuse to bend to the big 
money these corporations are giving you and do your job and look out 
for the welfare of the people. Thank you.
                                 ______
                                 
                        Comment of Robert Morley
    Date Submitted: Friday, May 18, 2012, 2:31 p.m.
    City, State: Spring Hill, FL
    Occupation: Aviation
    Comment: As a consumer I should have a right to know what is in my 
food and where it comes from and how it is grown. Companies like 
Monsanto should not have the last and only word concerning MY food! 
These corporations already have way too much power and it's time they 
get put in their place.
                                 ______
                                 
                       Comment of Gabriel Morner
    Date Submitted: Friday, May 18, 2012, 1:50 p.m.
    City, State: Rutherford, NJ
    Occupation: Architect
    Comment: Please end farm subsidies encouraging corporate farming 
and putting small farmers out of business. It is creating a hazardous 
condition in our food chain. An over dependence on chemicals and GMO's 
is killing the soil, poisoning our water and perverting our seed stock.
                                 ______
                                 
                       Comment of Gloria Morotti
    Date Submitted: Friday, May 18, 2012, 7:10 p.m.
    City, State: Bradenton, FL
    Occupation: Retired
    Comment: First of all, most of the food grown should be organic. 
There should be no GMOs. Corporate agriculture should be abolished as 
much as possible.
                                 ______
                                 
                      Comment of Rosemary Morretta
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Ridgefield, CT
    Occupation: Nonprofit Executive
    Comment: Please support environmental programs and local food, 
community supported agricultural initiatives and the policies and laws 
that effect the adoption of clean air and organic, local food. Thanks.
                                 ______
                                 
                      Comment of McKenna Morrigan
    Date Submitted: Sunday, May 20, 2012, 3:28 p.m.
    City, State: Seattle, WA
    Occupation: Consultant
    Comment: As the committee considers the 2012 Food and Farm Bill, I 
urge you to:

    (1) Strengthen critical nutrition programs. The Recession has 
        plunged tens of thousands of families into economic 
        vulnerability, where they must make tough choices between 
        healthy food and keeping a roof over their heads or the lights 
        on. These families depend on the support provided through the 
        Food and Farm Bill nutrition programs, and they cannot afford 
        to loose that support due to unwise budget cuts.

    (2) Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

    (3) And please finally find the political courage to make 
        structural adjustments to the farm bill that many people 
        acknowledge is necessary, so that it provides support to family 
        farmers that really need help, not the biggest farms that 
        don't. End subsidies (aka direct payments and countercyclical 
        commodity programs), and replace them with loophole-free 
        agriculture risk coverage; and implement a cap on crop 
        insurance premium subsidies.

    Thank you.
                                 ______
                                 
                        Comment of Chrys Morris
    Date Submitted: Friday, May 18, 2012, 6:01 p.m.
    City, State: Imperial, PA
    Occupation: Homemaker
    Comment: It's time to put American families and family owned farms 
ahead of agribusiness. Agribusiness doesn't care about the preserving 
the land for future generations--they only care about profits today. 
Small farmers are caretakers of the land, not rapists. Please take the 
opportunity to correct this terrible situation.
                                 ______
                                 
                      Comment of Elizabeth Morris
    Date Submitted: Friday, May 18, 2012, 2:24 p.m.
    City, State: Seattle, WA
    Occupation: Medical Education
    Comment: Support of local, organic agriculture should be the future 
of the farm bill. Please respectfully listen to the voices of the 
individuals who elected you.
                                 ______
                                 
                         Comment of Gary Morris
    Date Submitted: Friday, May 18, 2012, 8:57 p.m.
    City, State: Neskowin, OR
    Occupation: Alternative Health
    Comment: We are desperately in need of a measure that Protects our 
Organic Farmers and the culture that is supporting them! The movement 
to place 100% GMO foods on the market by the Monopoly known as Monsanto 
is a travesty to intelligent life on the planet! We are morally 
obligated to Stop producing GMO fruits and vegetables as we are messing 
with what God has created. We do not have the consciousness to 
absolutely know the long-term effects of these products, but there is 
one clear issue here! That we are not being informed as to the 
condition of our food supply! This is Criminal and what Monsanto has 
done to Organic Farmers in the court system is a Travesty of Immense 
Proportions! Shame on our Judicial System and Shame on Congress for 
allowing Monsanto to do their immoral GMO seeds with NO legislation or 
registration of their products whatsoever! Enough of this! It has to 
Stop Now. Please protect Organic Farming as preserve our right to eat 
Whole Healthy Foods without insecticides or weed killer genetically 
engineered into them! Thank you for considering and allowing our 
Natural Way of Living to continue as Mother Nature designed it to be!
                                 ______
                                 
                         Comment of John Morris
    Date Submitted: Friday, May 18, 2012, 4:54 p.m.
    City, State: Eugene, OR
    Occupation: Designer
    Comment: I write to strongly urge you to adopt policies that 
support small family farms, those practicing ecologically sustainable 
practices and organic farming methods. Too often our nation's lawmakers 
respond to the influence of agribusiness and related industries, 
including the petrochemical industry. I shouldn't need to remind you 
that you represent all the people, not just the entrenched special 
interests.
                                 ______
                                 
                         Comment of Mary Morris
    Date Submitted: Friday, May 18, 2012, 10:25 a.m.
    City, State: Colton, CA
    Occupation: Researcher
    Comment: It is time for a farm bill that supports good nutrition, 
and livelihoods and decreases the public health burden, not a farm bill 
that supports wealthy agribusinesses to produce excess unnecessary 
commodities. Please increase SNAP incentives to shop directly and eat 
produce, and remove subsidies for farms netting over $250,000 per year 
while favoring small farms producing organic produce.
                                 ______
                                 
                        Comment of Nancy Morris
    Date Submitted: Friday, May 18, 2012, 4:46 p.m.
    City, State: Seattle, WA
    Occupation: Writer
    Comment: To the House Agriculture Committee:

    Your allegiance is to the citizens of the United States--not 
industrialized GMO chemically based corporate agriculture. I demand you 
continue to support research into sustainable organic agriculture. Do 
not cut funding to this sector. I demand labeling of GMO's. Stop 
subsidizing the major agricultural corporations that continue to 
degrade the biosphere on which we are all dependent, including you.
                                 ______
                                 
                        Comment of Peter Morris
    Date Submitted: Friday, May 18, 2012, 5:50 p.m.
    City, State: Bradford, VT
    Occupation: Photographer
    Comment: Our health needs to be placed first. If we are becoming, 
sick, fat, and full of cancer, we can't work as hard or make good money 
to buy all the stuff the economy makes. Immediate profit without 
thought of cost is killing America. A smart and healthy economy takes 
good care of its workers and the rest or collapses and pays insane 
health care costs. Stop killing America with bad food and destruction 
of the family farm. Make good health profitable for the many instead of 
just making profit for the few.
                                 ______
                                 
                       Comment of Shirley Morris
    Date Submitted: Saturday, May 19, 2012, 10:43 a.m.
    City, State: Portland, OR
    Occupation: Realtor
    Comment: Please vote to help the organic food movement that is just 
now really beginning in many areas of the United States! These people 
are helping to sustain the land as well as provide much needed food 
that we depend on every day to nourish our bodies and keep healthy! Big 
agriculture is just that, a Business, and has gotten completely out of 
control with Congress ignoring what is going to completely tear apart 
our food and the land it is grown on.
            Sincerely,

Shirley Morris.
                                 ______
                                 
                        Comment of Chad Morrison
    Date Submitted: Tuesday, April 24, 2012, 11:07 a.m.
    City, State: Gassaway, WV
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 301-500 acres
    Comment: As an American, the farm bill is one of the most important 
and impactful parts of our infrastructure. Conservation and insurance 
set the tone for our country in the present and for the next 
generations as far as food supply and production. Our country is now in 
a place where self-sufficiency and sustainability are at the top of our 
priority list.
    In my opinion, our entire food system as a whole in the United 
States is failing. The cost of foods has skyrocketed, much to the point 
where families and individuals cannot afford to buy healthy foods to 
support their families. We become reliant on cheaper processed foods, 
which in the long term, cost us our health tenfold more. Our children 
are suffering from health diseases such as diabetes and obesity.
    As a resident of a rural state, West Virginia, transportation 
becomes a major issue. We constantly fight the battle between 
purchasing goods at higher prices locally or traveling to buy at a 
lower price. Again, traveling means less trips, and less access to 
perishable foods that tend to be healthier and more nutritious for our 
families.
    As an employee of a hunger relief organization, I see on a daily 
basis the impact of USDA commodity program and SNAP. People are no 
longer able to use these programs as an emergency (unless you consider 
it a long-term emergency), as it has become a forced way of life for 
many people. They have no other choice: use the resources available or 
starve or freeze. In West Virginia, the TEFAP program affects over 
275,000 people or more. What a huge number, considering it is 15% of 
our population.
    As the son of a farmer who was the son of a farmer for many 
generations, I see farmland and the occupation slowly disappearing. 
Invest in a future for West Virginia and the United States. Invest in 
programs that provide jobs that provide food, so that individuals can 
afford to buy food. Our country depends on being sustainable, and cuts 
to the farm bill may be irreversible. Cuts to the commodity program or 
SNAP will devastate our food banks and destroy any hope these citizens 
have.
                                 ______
                                 
                       Comment of Cheryl Morrison
    Date Submitted: Sunday, May 20, 2012, 12:16 a.m.
    City, State: Fairview, NC
    Comment: Please help make sustainable and organic farming practices 
the standard in our country. This will help future generations and keep 
us and our Earth healthy and happy. Thank you.
                                 ______
                                 
                       Comment of Daniel Morrison
    Date Submitted: Saturday, May 19, 2012, 11:07 a.m.
    City, State: Fredericksburg, VA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: My family owns a 15 acre farm in VA. We grow heirloom 
tomatoes, peppers, carrots, beets, squash, etc. We started growing for 
ourselves and then found were producing a lot more than we could eat so 
we expanded and are now growing for local restaurants. We do this all 
while having full time jobs. We don't use any chemicals or genetically 
modified seeds. If you spend take care of your soil and you don't 
overplant one crop, you can produce a lot more edible food than 
overplanting corn or soy. It is the over production that requires such 
large amounts of chemical fertilizers, pesticides and herbicides. And 
those chemicals have direct and indirect impacts on our bodies, health, 
environment and society. Please revise and rewrite the farm bill to be 
about food and people.
                                 ______
                                 
                       Comment of Leslie Morrison
    Date Submitted: Friday, May 18, 2012, 12:14 p.m.
    City, State: Passaic, NJ
    Occupation: Natural Foods Chef and Culinary Instructor
    Comment: As a mother and chef for families with children, it's my 
personal responsibility to use the safest ingredients for humans I can 
find. Our country needs MORE options for safe, nutritious, and 
affordable food free of chemicals, GMO ingredients, and pesticides. 
They are contributing to all kinds of diseases--cancer, ADHD, Autism, 
etc. These are costing our government and citizens way more money in 
health care than had we focused more on prevention in the first place! 
And it causes all who are touched by health problems and disease much 
more unnecessary heartache. Please, through legislation, put the health 
of our citizens first, and not big agriculture.
    Thank you!

Leslie Morrison.
                                 ______
                                 
     Joint Comment of Roger Morrison, M.D. and Nancy Herrick, P.A.
    Date Submitted: Saturday, May 19, 2012, 3:55 p.m.
    City, State: Nevada City, CA
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: We support local foods and farms act (H.R. 3286).
    We support fully funding conservation programs.
    We support Beginning farmer and rancher Act (H.R. 3236).
    We support maintaining EQUIP Organic Initiative.
            Sincerely,

Roger Morrison, M.D.;

Nancy Herrick, P.A.
                                 ______
                                 
                    Comment of Bernard C. Morrissey
    Date Submitted: Thursday, May 17, 2012, 11:38 a.m.
    City, State: Ephrata, PA
    Occupation: Founder, Bernard C. Morrissey Insurance, Inc.
    Comment: I am against any and all milk supply management provisions 
being included in the dairy title of the farm bill. Dairy producers 
should not have to be the only ag sector governed by arbitrary 
production caps as a prerequisite for access to a safety net or risk 
management tool (as proposed in the Dairy Security Act--being 
considered as the new dairy policy in the farm bill). Simply move LGM-
Dairy from pilot status to regular crop insurance status and make this 
effective margin protection program more widely available to dairy 
producers.
                                 ______
                                 
                     Comment of Christine Morrissey
    Date Submitted: Friday, May 18, 2012, 12:26 p.m.
    City, State: Ithaca, NY
    Occupation: Retired
    Comment: I rely on local organic produce to support my local farm 
businesspeople and to assure my healthy veggies remain a reasonably 
priced option without GMO pollution.
                                 ______
                                 
                      Comment of Doredn Morrissey
    Date Submitted: Friday, May 18, 2012, 10:10 p.m.
    City, State: Los Angeles, CA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: As a landscape architect by training, I can tell you that 
my best paying clients ask for sustainable practices and small plots 
for growing vegetables. It is a shift and the market dictates that we 
stay ahead of the curve. Please pave the way to support the shifts in 
market. The genie is out of the bottle and the fight against it will be 
just as arduous a fight, but additionally with a long-term losing 
proposition. Surely you are aware of this.
    Many of our founding founders had a deep respect for farming, and 
in summer sought respite from the troubles in Washington D.C. by 
returning to their farms and working the land with integrity. Please 
support farming that does not weaken our soils, our plants, our health, 
and ultimately our nation. Agribusiness may be a (relatively short 
term) profitable business, but it is not appropriate for the food we 
feed our families with, nor for the rich land we have as a nation. 
Healthy farmed agriculture yields higher market prices locally (and 
eventually internationally), but for agribusiness it is an expensive 
shift. As elected leaders, I deeply hope you are concerned with the 
quality of life for both your constituents and our great and unique 
nation. Please be judicious and long-sighted in your decision making.
    Thank you for all your efforts.
                                 ______
                                 
                       Comment of Samantha Morrow
    Date Submitted: Friday, May 18, 2012, 3:16 p.m.
    City, State: Ferndale, WA
    Occupation: Teacher & Mother
    Comment: I grew up in a farming family in OH. Corn and soy and 
cooped-up, grain-fed cattle was the only viable option for my uncles 
and father. As a mom, I've learned more so that I am sure to feed my 
children nutrition without the extra helping of pesticides, 
insecticides, artificial fertilizers, and excessive amounts of high 
fructose corn syrup. On the small plot of land, I am employing 
sustainable practices to help feed my family and neighbors. When I 
share with my father, he longs to be able to do it all over again. He 
regrets the choices he and his brothers made. He sees the results on 
the land.
    I support all provisions of the Local Foods, Farms and Jobs Act 
(H.R. 3286). I support fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs. I support the implementation of all provisions 
of the Beginning Farmer and Rancher Opportunity Act (H.R. 3236). I hope 
you maintain the EQIP Organic Initiative.
                                 ______
                                 
                     Comment of Anne Juniper Morse
    Date Submitted: Friday, May 11, 2012, 12:46 p.m.
    City, State: Hillsboro, OR
    Comment: I work for Adelante Mujeres a nonprofit organization in 
Oregon that supports Latino farmers. I hope that in the new farm bill 
their continues to be support for socially disadvantaged farmers and 
ranchers. Outreach and Assistance for Socially Disadvantaged Farmers 
and Ranchers Program (OASDFR) is a valuable program. We would like to 
encourage its inclusion as another vital piece of the farm bill that is 
under consideration. In the past our organization was able to secure 
funding from this program to help underserved Latino farmers in Oregon. 
We hope you will consider adding it.
                                 ______
                                 
                       Comment of Elizabeth Morse
    Date Submitted: Friday, May 18, 2012, 4:04 p.m.
    City, State: South Bend, IN
    Occupation: Self Employed and Member of Local Food Co-Op
    Comment: We need to stop the usage of GMO seed. We need to focus on 
reducing that amount of fuel used in commercial ag. Healthy land is 
essential to maintaining our health as a nation.
                                 ______
                                 
                         Comment of Linda Morse
    Date Submitted: Friday, May 18, 2012, 3:22 p.m.
    City, State: Durango, CO
    Occupation: Energy Consultant
    Comment: I would like to make sure we have the right to know what 
is in our food by having all things labeled as to whether items are GMO 
or GMO-free.
                                 ______
                                 
                         Comment of Stacy Morse
    Date Submitted: Friday, May 18, 2012, 9:39 p.m.
    City, State: Nashville, TN
    Occupation: Training Coordinator
    Comment: I support the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286). I also believe in fully 
funding conservation programs, such as the Conservation Stewardship 
Program, and making sure that enrollment in any new insurance subsidies 
are tied directly to compliance with conservation programs.
    I support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    We should also maintain the EQIP Organic Initiative. We should not 
be cutting funding for vital programs such as nutrition, conservation 
and support for organic and sustainable agriculture. We do need to 
eliminate wasteful subsidies for corporate agribusiness, but the 
proposition that we replace them with a new subsidized insurance 
program that is full of opportunities for fraud and abuse is not an 
improvement nor real reform. The proposed subsidized insurance program 
will allow giant commodity farmers and insurance companies to walk away 
with billions in taxpayer dollars while putting the land, soil and 
environment at greater risk.
                                 ______
                                 
                    Comments of Vivianne Mosca-Clark
    Date Submitted: Friday, May 11, 2012 6:26 p.m.
    City, State: Williams, OR
    Occupation: Retired
    Comment: What I can see is more farms, farming organic and 
sustainable food. That will create more jobs. Non GMO foods growing in 
our fields. GMO's kill the ground and use more pesticides, and 
herbicides. We need real whole food for real people.
    Date Submitted: Thursday, May 17, 2012 7:23 p.m.
    Comment: Since eating good food is essential for healthy humans, I 
think good food is important. I have worked on organic farms in my 
life. I never got sick from working on the land. All people need to 
live with dignity and justice. Starving does not work with this 
comment.
    Date Submitted: Friday, May 18, 2012, 5:17 p.m.
    Comment: Life forces on our planet suffer when poisoned.
    When we feed poison to the plants we eat that poison. Poison goes 
into the body of the plants/animals. I do not understand what is so 
confusing about this.
    It is simple . . . stop poisoning the food and the beings that eat 
it will thrive.
    Money is the issue for why there is so much controversial issues 
about it all.
    Somewhere in all of this garbage is the real issue. Survival, and 
the quality of survival.
    I vote for a healthy survival.
    Date Submitted: Sunday, March 18, 2012 7:28 p.m.
    Comment: Eating good well grown food is very important to have 
healthy citizens in our country. Being able to buy local grown foods 
helps local communities. Clean whole foods is important in human 
health, as GM foods are proving they are not good for health in people 
or animals. Animals are having 70% spontaneous abortions. And more 
women are having the same. This needs to be stopped.
                                 ______
                                 
                      Comment of Linda Moscarella
    Date Submitted: Friday, May 18, 2012, 7:42 p.m.
    City, State: El Prado, NM
    Occupation: Retired
    Comment: The farm bill must be reformed, to focus on healthy food 
rather than profits for industrial scale farmers. The current bill is 
wasteful, costly to the taxpayers, and rewards the wrong people.
                                 ______
                                 
                         Comment of Rich Moser
    Date Submitted: Friday, May 18, 2012, 1:45 p.m.
    City, State: Santa Barbara, CA
    Occupation: Consultant
    Comment: Support sustainable practices and small farms. Eliminate 
subsidies for large growers. Eliminate all funding for genetically-
modified items.
                                 ______
                                 
                       Comment of Melanie Moshier
    Date Submitted: Saturday, May 19, 2012, 1:39 a.m.
    City, State: Pomona, CA
    Occupation: Substitute Teacher
    Comment: We cannot allow agribusiness to continue to pollute our 
food and our land. It is a disgrace that profit is the chief motive of 
business in America; it should be service to our fellows. It is your 
duty to stand up for the health of Americans and our land.
                                 ______
                                 
                      Comment of Robert Moskowitz
    Date Submitted: Friday, May 18, 2012, 5:37 p.m.
    City, State: Santa Monica, CA
    Occupation: Retired
    Comment: American food should be the purest in the world. We should 
have honest and simple labeling laws: if it's in there, label it. We 
should let ``organic'' mean no chemicals of any kind. We should stop 
subsidizing pesticide use and petrochemical-based farming. We should 
work toward more conservation of scarce resources.
    Thanks for thinking of the American people rather than Agribusiness 
economic interests.
                                 ______
                                 
                         Comment of Andrew Moss
    Date Submitted: Friday, May 18, 2012, 4:26 p.m.
    City, State: Ruby, NY
    Occupation: Graphic Designer
    Comment: We should encourage and support small family farms, 
organic farms and small entrepreneur farms. Big agricultural 
corporations that use the most pesticides and herbicides, chemical 
fertilizers and genetically modified crops, are in it purely for 
profit, not for the quality of the product or its impact on our health. 
I support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I want to get my meat, dairy and produce from my local farms, not 
from a corporate farm across the country. I want to support my local 
farms and have the freshest products possible.
                                 ______
                                 
                        Comment of Laura Mosser
    Date Submitted: Friday, May 11, 2012, 12:43 p.m.
    City, State: Charlotte, NC
    Occupation: Executive Assistant
    Comment: I implore you to protect our seniors' ability to have 
access to food. Seniors should not have to choose between their 
necessities. Please do not cut funding for these vital services. Thank 
you!
                                 ______
                                 
                      Comment of Stephanie Motenko
    Date Submitted: Friday, May 18, 2012, 1:14 p.m.
    City, State: Aurora, IL
    Occupation: Mother
    Comment: Please stop giving help to big ag so that they can produce 
more and more GMO corn. We Don't Want GMO Corn! We want healthy, 
sustainable, Real food! Support small farmers growing real food using 
sustainable methods.
                                 ______
                                 
                        Comment of Jerome Moton
    Date Submitted: Friday, May 18, 2012, 8:12 p.m.
    City, State: El Paso, TX
    Occupation: Writer and Aspiring Gardener
    Comment: Dear Representatives:

    The U.S. agricultural system needs much improvement. So please 
consider encouraging the flourishing of healthy, organic farming. We 
are long overdue for a food renaissance, as national health continues 
to plummet despite the efforts at disease prevention and the promotion 
of exercise. Your policies in this regard must include healthy food 
production practices to garner physical and mental vibrancy. Clean food 
and soil are key to restoring wellness. Please fund best practices 
agriculture programs that encourage local, organic food production and 
wellbeing.
            Thank you,

Jerome Moton.
                                 ______
                                 
                       Comment of Sato Moughalian
    Date Submitted: Friday, May 18, 2012, 6:40 p.m.
    City, State: New York, NY
    Occupation: Flutist
    Comment: It is time to stop supporting giant agribusiness and the 
products that flow from giant agribusiness which are so detrimental to 
the health of our nation's people. If we are to provide any kind of 
farm support any more, it should go equally to small farmers who 
promote biodiversity and produce more healthful food. Genetic 
engineering has not proven itself to be of value in feeding the hungry, 
and the products that are produced in this manner require ever 
increasing loads of toxic chemicals, substances which are contributing 
to our chronic illnesses. Confined animal farming operations also 
promote illness both in the animals, and in the increasing number of 
antibiotic resistant strains which are developing because of these 
factory farming methods. It is time to stop the handouts to giant 
businesses and to ease conditions for a greater amount of small, 
diverse and sustainable farming.
            Sincerely,

Sato Moughalian.
                                 ______
                                 
                        Comment of Linda Moulder
    Date Submitted: Thursday, May 17, 2012, 5:58 p.m.
    City, State: Spokane, WA
    Occupation: Retired
    Comment: I hope the farm bill will assure everyone, regardless of 
income level, has access to healthy, real food. I want the bill to 
assure protection of our nation's soils and waters and provide 
encouragement of new small farmers and growers.
                                 ______
                                 
                        Comment of Laurie Moxley
    Date Submitted: Friday, May 18, 2012, 3:16 p.m.
    City, State: Mountain Grove, MO
    Producer/Non-producer: Producer
    Type: Dairy, Livestock, Specialty Crops
    Size: 151-300 acres
    Comment: I am a fifth generation American farmer who is disgusted 
with farming and the food culture in America. We grow and feed our 
family as much as we can in the most natural way we can. I do not want 
to eat grow or feed GMO's, I don't want factory food. It is the 
responsibility of farmers to be stewards of the land and produce food 
that is good for all that is connected to it. We are not responsible 
for feeding the world garbage. Help other countries to be able to feed 
themselves real, healthy food.
                                 ______
                                 
                         Comment of Wayne Moyer
    Date Submitted: Thursday, May 17, 2012, 9:29 p.m.
    City, State: Norge, VA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: We must support small scale, local producers to create 
sustainable communities. Big agriculture has dominated previous bills 
but times are changing and the new bill should shift the emphasis 
toward sustainability and protecting farm land.
                                 ______
                                 
                        Comment of David Mucklow
    Date Submitted: Friday, May 18, 2012, 5:46 p.m.
    City, State: Green, OH
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: Everybody in this industry knows that the future is 
organic growing systems, which removes harmful and unnecessary 
chemicals from our food chain.
                                 ______
                                 
                        Comment of Dawn Mueller
    Date Submitted: Friday, May 18, 2012, 2:39 p.m.
    City, State: Clifton, NJ
    Occupation: VP in Music Publishing
    Comment: Why do I have to eat tomatoes that have no taste? In 
Europe they don't! Why is my fruit tasteless? In the Caribbean it 
isn't. The reason is because my government would rather let 
corporations profit and sell terrible food, then let farmers sell us 
good, health, vitamin filled food. Stop This Insanity And Get On The 
Right Track Already!
                                 ______
                                 
                      Comment of George B. Mueller
    Date Submitted: Saturday, May 12, 2012, 12:13 p.m.
    City, State: Clifton Springs, NY
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 1,000+ acres
    Comment: Dear House Ag Committee,

    We Never--Never--Never--Should Adopt The Idea Of A Government Run 
Quota (Supply Management) System In Our Vibrant And Expanding Dairy 
Industry. (115 Billion Pounds In 1965, 200 Billion Pounds Per Year 
Today!)
    Canada With Its Quotas Is Dead In The Water. We In The USA Have 
Great Potential If We Can Keep Quotas Out Of Our Industry.
    I, and my family have been milking cows for 52 years. The dairy 
industry has been very good to the Mueller Family. Please don't let the 
age old dream of controlling supply to raise prices stagnate our 
industry.
    Yes, I know they say the quota will be voluntary. (Not so voluntary 
if your banker insists you adopt a quota to gain margin insurance.)
    But let us not allow the age old and foolish concept of cutting 
production to raise prices gain a foothold in dairy.
    How would we like it if the government told the auto industry to 
cut back on production so as to raise the price of the cars we buy?
    Exports of dairy products is booming. Let us serve that growing 
market. Not cut back!
    Yogurt and Greek yogurt sales are booming. Let us serve that 
growing market. Not cut back!
    Argentina, Brazil, and Eastern Europe will serve the world markets 
if we are slow and cut back. We have the infrastructure and head start 
and we know the dairy industry. Please Don't Saddle My Industry With 
The Beginning Of A Foolish Quota System!
            Sincerely,

George B. Mueller,
Willow Bend Farm, Clifton Springs, NY.
                                 ______
                                 
                        Comment of Mark Mueller
    Date Submitted: Friday, May 18, 2012, 6:52 p.m.
    City, State: Boone, NC
    Occupation: Beekeeper
    Comment: H.R. 3236 and H.R. 3286 should become the law of the land. 
Aligning SNAP benefits and farmers markets, where funds benefit the 
health of all, is far preferable to more Big Business/Bad Food 
subsidies. Please! Americans want good food and good health for all, 
but we don't want private corporations to control our water, air, soil, 
and foods!
                                 ______
                                 
                      Comment of Ernest J.P. Muhly
    Date Submitted: Friday, May 18, 2012, 4:22 p.m.
    City, State: Walkersville, MD
    Occupation: Consulting Ecologist and Educator
    Comment: Slashing $33 billion from the food stamp program to create 
a $33 billion new entitlement program that guarantees the income of 
profitable farm businesses, on top of $90 billion in subsidies for crop 
and revenue insurance policies is unacceptable.
    I am also asking you to support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Haruko Mukasa
    Date Submitted: Friday, May 18, 2012, 11:10 p.m.
    City, State: Oakland, CA
    Occupation: Retired
    Comment: Please protect organic farmers so that we consumers can 
get healthy food at affordable price anywhere. It is especially 
important that our children get safe, nutritious food to grow into 
strong, healthy members of our society. Don't let the monstrous 
agribusiness destroy our country. Help small family farmers instead.
                                 ______
                                 
                        Comment of James Mulcare
    Date Submitted: Friday, May 18, 2012, 3:46 p.m.
    City, State: Clarkston, WA
    Occupation: Gaming Dealer
    Comment: It's time for real reform. We need programs that consider 
the long term health of the land and the consumer. Large agri-
corporations appear to have taken over all levels of farming. They need 
to be reigned back in.
                                 ______
                                 
                         Comment of June Muller
    Date Submitted: Sunday, May 20, 2012, 6:43 p.m.
    City, State: New York, NY
    Occupation: Consultant
    Comment: ``Where there is no vision the people perish.'' Current 
policies are detrimental to the planet's long-term ability to produce 
food. We need a fair and healthy farm bill.
                                 ______
                                 
                         Comment of Kris Muller
    Date Submitted: Friday, April 27, 2012, 5:25 p.m.
    City, State: Berkeley, CA
    Occupation: Retired
    Comment: While we do produce a portion of our own food, we also 
support local farmers at the farmers markets and through the grocery 
stores that buy from local farmers. We believe future food security 
depends on our now nurturing soil and water conservation, sound animal 
husbandry that minimizes CO<INF>2</INF> and water pollution, and 
teaches farmers and ranchers how to work with natural cycles without 
poisons that undermine future productivity. Please protect programs 
that give fair attention to small family farms and small organic farms.
                                 ______
                                 
                       Comment of Renee Mulligan
    Date Submitted: Sunday, May 20, 2012, 6:32 p.m.
    City, State: Bryson City, NC
    Occupation: Health Educator
    Comment: A $36 million cut to SNAP is not the way to go. The 
Committee should focus on writing a farm bill that creates economic 
opportunity and improves access to healthy, affordable food for all 
Americans.

    1. Community Food Projects Program--$10 million per year to help 
        communities build food self-reliance.

    2. Farmers Market and Local Food Promotion Program--$20 million per 
        year to develop farmers market capacity and create food hubs to 
        connect farmers with schools, hospitals, grocery stores and 
        other markets.

    3. Hunger-Free Community Incentive Grants--An average of $20 
        million per year for a new SNAP local fruit and vegetable 
        incentive grant program at farmers markets and other healthy 
        food retailers.
                                 ______
                                 
                      Comment of Cathleen Mullins
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Portland, OR
    Occupation: Retired
    Comment: We cannot afford to keep making the same mistakes year 
after year. Please, please, please, listen to us now, take responsible 
action now. We have the right to healthy food, healthy farms and 
healthy people. Help us achieve that. Do not cut funding to programs 
such as nutrition, conservation and support for organic and sustainable 
agriculture.
                                 ______
                                 
                        Comment of M.J. Mullins
    Date Submitted: Wednesday, May 09, 2012, 4:32 p.m.
    City, State: Deerfield Beach, FL
    Occupation: Retired
    Comment: Please do not allow cuts to SNAP, TEFAP or CSFP. I know 
any further cuts will hurt many of my elderly friends. Let's not desert 
people who are on limited incomes! Old people should not have to eat 
dog or cat food because they don't have sufficient money for food, 
medical care and shelter.
                                 ______
                                 
                        Comment of Beatriz Muniz
    Date Submitted: Friday, May 18, 2012, 8:40 p.m.
    City, State: Sacramento, CA
    Occupation: Membership Services Coordinator
    Comment: Hello House Committee Members, I am writing to urge you to 
support the farm bill. Fairness is the bottom line and I know in your 
hearts you want fairness! Please do the right thing!
            Thank you,

Beatriz Muniz.
                                 ______
                                 
                      Comment of Hideyuki Murakami
    Date Submitted: Friday, May 18, 2012, 1:31 p.m.
    City, State: San Diego, CA
    Occupation: EMT
    Comment: Please end subsidies to agribusinesses. These subsidies 
lead to overproduction that result in surplus agriculture going to 
unhealthy products such as corn syrup. Alternatively, these foods may 
flood overseas markets, thus destroying rural communities globally.
                                 ______
                                 
                        Comment of Terri Murdoch
    Date Submitted: Friday, May 18, 2012, 1:08 p.m.
    City, State: Little Rock, AR
    Occupation: Homemaker
    Comment: Dear House Committee on Agriculture,

    Please consider the following abbreviated comments for long term 
sustainable healthy land, animals and people.
    Move government subsidizing from:

  <bullet> large monoculture farms

  <bullet> production of grains and starches (wheat, corn, soybeans)

    To:

  <bullet> small, polyculture, heirloom, and eco-sustainable (non-
        pesticide and artificial fertilizer usage) farms; where animals 
        are pastured, and various nutrient dense vegetables and fruits 
        are grown.

            Thank you,

Terri Murdoch.
                                 ______
                                 
                        Comment of Sara Murdock
    Date Submitted: Friday, May 18, 2012, 12:02 p.m.
    City, State: Seattle, WA
    Occupation: Graduate Student, Artist, and Community Volunteer
    Comment: We have the opportunity to positively impact the economy, 
living wages for more farmers, public health, societal perceptions 
about healthy food, and the environment. Let's not squander our future 
in favor of short-term political plays.
                                 ______
                                 
                         Comment of Rian Murnen
    Date Submitted: Saturday, May 19, 2012, 2:04 a.m.
    City, State: Portland, OR
    Occupation: Designer
    Comment: Honorable Representatives,

    I'm writing to express my deep concern with the current state of 
Federal law as it pertains to agriculture. A culture of inappropriate 
dependence on big dollar campaign donors has distorted past 
Representatives actions in regard to the farm bill--but here and now, 
you have the opportunity to make the decision to realign legislation 
with the will of The People rather than The Funders. You may become the 
wise leaders who set our nation on a path to a healthier food system.
    During my brief lifetime Congress has allowed, and at times 
actively engaged, in eroding the farm bill and related legislation 
causing deep harm to our food systems, environment, farming families 
and their communities. In hopes of redressing this degradation, I 
petition you to fully endorse the Local Foods, Farms and Jobs Act (H.R. 
3286).
    Please reorient the priorities of Congress to focus on the health 
of our citizens, small family farms, farming communities and 
environment. Fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    Here in my home town of Portland, Oregon, I am an ``eater'' living 
in an urban environment who depends on small family farmers. I 
volunteered with my community in 2011 to establish a neighborhood 
farmers market. Through this engagement with my neighbors and farmers, 
I've had opportunity to gain a direct connection to the food on my 
plate and support the professionals who make that food possible.
    In doing so I've also met a number of peers who are working to 
enter the field of small-scale farming. Beyond providing them my 
encouragement and support, I call on you to implement all provisions of 
the Beginning Farmer and Rancher Opportunity Act (H.R. 3236) to foster 
this professional field in a time when jobs are sorely needed and 
family farms are struggling to train up the next generation.
    If you doubt the existence of these ``beginners'' I encourage you 
to contact Rep. Blumenauer. On occasion he has joined my neighbors, 
area farmers and my family at our monthly ``InFARMation'' networking 
event were farmers young and old join with eaters in dialog to learn 
more about food and farm issues. I'm confident he would be happy to 
share his personal experience meeting young beginning farmers who need 
our nation's support in engaging in this challenging field.
    My own interest in farming began with my grandfather, who is now 
past. He was a first generation American, who farmed and raised 
livestock. He taught me to cultivate organically, skills I use to this 
day in my small urban garden. The values he instilled in me, a respect 
for the soil, seed and animals has made me confident that maintaining 
the EQIP Organic Initiative a responsible act that the House should 
pursue with pride.
    There are a number of ways that legislation could reverse the 
destructive trend of the last several decades, but these specific 
immediate actions are steps the Congress should take today.
    Thank you for your service on the House Agriculture Committee and 
for acknowledging that individual citizens, The People, should have the 
strongest voice in guiding your legislative work.
                                 ______
                                 
                       Comment of Sandy Murphree
    Date Submitted: Friday, May 18, 2012, 6:05 p.m.
    City, State: Elgin, TX
    Occupation: Retired
    Comment: I don't grow but we like to eat. I work at the local 
Community Cupboard (food pantry) which sees new people line up every 
Tuesday. Lots of job loss here, Lots. If you're not a techie or 
bartender, there's not much here and people need food so they can pay 
for rent and utilities, and shoes, and medical. What is the matter with 
you people? Get out and talk to the people. Mr. McCaul, you have been 
the biggest disappointment from the beginning, with your nod to tax 
cuts for friends, ignoring children and seniors. Locked by the hip to 
GWB, and his wars, tax cuts and lies.
                                 ______
                                 
                        Comment of Brian Murphy
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: Paia, HI
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: I am a small chicken & vegetable farmer here in Maui 
Hawaii, we hear all this Green Future, Green farming, Sustainable 
Farming on & on. But the fact is Hemp could be used for all types of 
Farm crops, Fuel Food fiber! We all know it has nothing to do with 
Marijuana and has everything to do with protecting the Oil, Big Ag, Big 
banks controlling the world food & Fuel supply! Be Pono and lets change 
the rule on Hemp & replace Sugar cane with hemp, Fuel Food Fiber & 
medicine!
    As I write this I have to ask myself will my voice be heard? 
Probably not!
    The America of Equal Justice is gone!
    The Will of The people is Gone!
    It's just a matter of time before the Corporation declare worldwide 
disaster & Corporation Marshal Law Rules!
    Sad so sad. I loved what America stood for.
                                 ______
                                 
                        Comment of Erica Murphy
    Date Submitted: Friday, May 18, 2012, 11:30 a.m.
    City, State: New Orleans, LA
    Occupation: Horticulturist
    Comment: Please stop harming us with unsafe poor quality food. 
Don't you want everyone to be healthy, more productive citizens. Our 
basic everyday need is food and water let's make these two very simple 
things something we can all be proud of.
            Sincerely,

Erica Murphy.
                                 ______
                                 
                         Comment of Joy Murphy
    Date Submitted: Friday, May 18, 2012, 9:13 p.m.
    City, State: Santa Rosa, CA
    Occupation: Homemaker--Retired AT&T Employee
    Comment: As you prepare the next farm bill, please keep in mind the 
desires of the American people. We want wholesome organically grown 
food from local venders. We cringe at what is currently happening to 
the small family farmers. Please help us fight against big corporations 
such as Monsanto who's GMO foods are threatening our lives the lives of 
future generations. Do not let the big money in Washington politics 
sway your decision to protect the American people.
                                 ______
                                 
                       Comment of Maureen Murphy
    Date Submitted: Friday, May 18, 2012, 8:07 p.m.
    City, State: Boulder, CO
    Occupation: Retired Office Manager from Univ. of Colorado
    Comment: Here's what I support: No GMOs, support for farmers over 
corporations and learning to farm without pesticides and learning to 
replenish the soil versus just take from it.
    Also:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Juan Murray
    Date Submitted: Friday, May 18, 2012, 4:03 p.m.
    City, State: Hartford, CT
    Comment: SNAP is important cause it helps many Americans, 
especially due to no one being able to get jobs. SNAP helps a lot of 
families eat, and eating is real important.
                                 ______
                                 
                         Comment of Vasu Murti
    Date Submitted: Friday, May 18, 2012, 10:29 p.m.
    City, State: Oakland, CA
    Occupation: Social Services
    Comment: Let's transition to a plant-based economy. Veganism is 
direct action!
    ``A (meat-centered) diet that can lead to heart attacks, cancer, 
and numerous other diseases cannot be a natural diet,'' writes Keith 
Akers in A Vegetarian Sourcebook (1983). ``A (meat-centered) diet that 
pillages our resources of land, water, forests, and energy cannot be a 
natural diet. A (meat-centered) diet that causes the unnecessary 
suffering and death of billions of animals each year cannot be a 
natural diet.''
    I understand there are conservative Christians who fear 
vegetarianism . . . which is kind of like being afraid of nonsmoking, 
nondrinking, or recycling. Ronald J. Sider of Evangelicals for Social 
Action, in his 1977 book, Rich Christians in an Age of Hunger, pointed 
out that 220 million Americans were eating enough food (largely because 
of the high consumption of grain fed to livestock) to feed over one 
billion people in the poorer countries.
    A pamphlet put out by Compassion Over Killing says raising animals 
for food is one of the leading causes of both pollution and resource 
depletion today. According to a recent United Nations report, 
Livestock's Long Shadow, raising chickens, turkeys, pigs, and other 
animals for food causes more greenhouse gas emissions than all the 
cars, trucks and other forms of transportation combined.
    Researchers from the University of Chicago similarly concluded that 
a vegetarian diet is the most energy efficient, and the average 
American does more to reduce global warming emissions by not eating 
animal products than by switching to a hybrid car.

          ``Livestock are one of the most significant contributors to 
        today's most serious environmental problems. Urgent action is 
        required to remedy the situation.''--Union Nations' Food and 
        Agriculture Association

    Nearly 75% of the grain grown and 50% of the water consumed in the 
U.S. are used by the meat industry. (Audubon Society)
    Over 260 million acres of U.S. forest have been cleared to grow 
grain for livestock. (Greenpeace)
    It takes nearly 1 gallon of fossil fuel and 5,200 gallons of water 
to produce just 1 pound of conventionally fed beef. (Mother Jones)
    Farmed animals produce an estimated 1.4 billion tons of fecal waste 
each year in the U.S. Much of this untreated waste pollutes the land 
and water.
    The following points and facts are excerpted from Please Don't Eat 
the Animals (2007) by the mother-daughter writing team of Jennifer 
Horsman and Jaime Flowers:

          ``A reduction in beef and other meat consumption is the most 
        potent single act you can take to halt the destruction of our 
        environment and preserve our natural resources. Our choices do 
        matter: What's healthiest for each of us personally is also 
        healthiest for the life support system of our precious, but 
        wounded planet.''--John Robbins, author, Diet for a New 
        America, and President, EarthSave Foundation

    One study puts animal waste in the United States to between 2.4 
trillion to 3.9 trillion pounds per year. The United states produces 
15,000 pounds of manure per person. This is 130 times the amount of 
waste produced by the entire human population of the United States.
    A 1,000 cow dairy can produce approximately 120,000 pounds of waste 
per day. This is the functional equivalent of the amount of sanitary 
waste produced by a city of 20,000 people.
    A 20,000 chicken factory produces about 2.4 million pounds of 
manure a year. Poultry factories are one of the fastest growing 
industries throughout Asia.
    One pig excretes nearly 3 gallons of waste per day, or 2.5 times 
the average human's daily total. One hog farm with 50,000 pigs in 
France produces more waste than the entire city of Los Angeles, and 
some pig farms are much larger.
    Factory farm pollution is the primary source of damage to coastal 
waters in North and South America, Europe, and Asia. Scientists report 
that over sixty percent of the coastal waters in the United States are 
moderately to severely degraded from factory farm nutrient pollution. 
This pollution creates oxygen-depleted dead zones, which are huge areas 
of ocean devoid of aquatic life.
    Meat production causes deforestation, which then contributes to 
global warming. Trees convert carbon dioxide into oxygen, and the 
destruction of forests around the globe to make room for grazing cattle 
furthers the greenhouse effect.
    The Food and Agricultural Organization of the United Nations 
reports that the annual rate of tropical deforestation has increased 
from 9 million hectares in 1980 to 16.8 million hectares in 1990, and 
unfortunately, this destruction has accelerated since then. By 1994, a 
staggering 200 million hectares of rainforest had been destroyed in 
South America just for cattle.

          ``The impact of countless hooves and mouths over the years 
        has done more to alter the type of vegetation and land forms of 
        the West than all the water projects, strip mines, power 
        plants, freeways, and sub-division developments combined.''--
        Philip Fradkin, in Audubon, National Audubon Society, New York

    Agricultural meat production generates air pollution. As manure 
decomposes, it releases over 400 volatile organic compounds, many of 
which are extremely harmful to human health. Nitrogen, a major by-
product of animal wastes, changes to ammonia as it escapes into the 
air, and this is a major source of acid rain. Worldwide, livestock 
produce over thirty million tons of ammonia. Hydrogen sulfide, another 
chemical released from animal waste, can cause irreversible 
neurological damage, even at low levels.
    The World Conservation Union lists over 1,000 different fish 
species that are threatened or endangered. According to the United 
Nations Food and Agriculture Organization (FAO) estimate, over 60 
percent of the world's fish species are either fully exploited or 
depleted. Commercial fish populations of cod, hake, haddock, and 
flounder have fallen by as much as 95 percent in the north Atlantic.
    The United States and Europe lose several billion tons of topsoil 
each year from cropland and grazing land, and 84 percent of this 
erosion is caused by livestock agriculture. While this soil is 
theoretically a renewable resource, we are losing soil at a much faster 
rate than we are able to replace it. It takes 100 to 500 years to 
produce 1 inch of topsoil, but due to livestock grazing and feeding, 
farming areas can lose up to 6 inches of topsoil a year.
    Livestock production affects a startling 70 to 85 percent of the 
land area of the United States, United Kingdom, and the European Union. 
That includes the public and private rangeland used for grazing, as 
well as the land used to produce the crops that feed the animals.
    By comparison, urbanization only affects three percent of the 
United States land area, slightly larger for the European Union and the 
United Kingdom. Meat production consumes the world's land resources.
    Half of all fresh water worldwide is used for thirsty livestock. 
Producing 8 ounces of beef requires an unimaginable 25,000 liters of 
water, or the water necessary for 1 pound of steak equals the water 
consumption of the average household for a year.
    The United States government spends $10 million each year to kill 
an estimated 100,000 wild animals, including coyotes, foxes, bobcats, 
badgers, bears, and mountain lions just to placate ranchers who don't 
want these animals killing their livestock. The cost far outweighs the 
damage to livestock that these predators cause.
    The Worldwatch Institute estimates 1 pound of steak from a steer 
raised in a feedlot costs: 5 pounds of grain, a whopping 2,500 gallons 
of water, the energy equivalent of a gallon of gasoline, and about 34 
pounds of topsoil.
    Thirty-three percent of our nation's raw materials and fossil fuels 
go into livestock destined for slaughter. In a vegan economy, only two 
percent of our resources will go to the production of food.

          ``It seems disingenuous for the intellectual elite of the 
        first world to dwell on the subject of too many babies being 
        born in the second- and third-world nations while virtually 
        ignoring the overpopulation of cattle and the realities of a 
        food chain that robs the poor of sustenance to feed the rich a 
        steady diet of grain-fed meat.''--Jeremy Rifkin, pro-life And 
        pro-animal author, Beyond Beef: The Rise and Fall of the Cattle 
        Culture, and president of the Greenhouse Crisis Foundation
          ``Carl Pope could probably affect the world more by being a 
        vegetarian than through his job as president of the Sierra 
        Club,''--quipped Jennifer Horsman in 2007.

    According to the editors of World Watch, July/August 2004:

          ``The human appetite for animal flesh is a driving force 
        behind virtually every major category of environmental damage 
        now threatening the human future--deforestization, topsoil 
        erosion, fresh water scarcity, air and water pollution, climate 
        change, biodiversity loss, social injustice, the 
        destabilization of communities and the spread of disease.''

    Brother David Steindl-Rast, a Benedictine monk, similarly says in 
the February 1995 issue of Harmony: Voices for a Just Future (a peace 
and justice periodical on the religious left):

          ``. . . the survival of our planet depends on our sense of 
        belonging--to all other humans, to dolphins caught in dragnets 
        to pigs and chickens and calves raised in animal concentration 
        camps, to redwoods and rainforests, to kelp beds in our oceans, 
        and to the ozone layer.''

    The number of animals killed for food in the United States is 
nearly 75 times larger than the number of animals killed in 
laboratories, 30 times larger than the number killed by hunters and 
trappers, and 500 times larger than the number of animals killed in 
animal pounds.
    People for the Ethical Treatment of Animals (PETA) is challenging 
those who think they can still be ``meat-eating environmentalists'' to 
go vegan, if they really care about the planet.
    peta2 is now the largest youth movement of any social change 
organization in the world.
    peta2 has 267,000 friends on MySpace and 91,000 Facebook fans.
    A few years ago, PETA was the top-ranked charity when a poll asked 
teenagers what nonprofit group they would most want to work for. PETA 
won by more than a two to one margin over the second place finisher, 
The American Red Cross, with more votes than the Red Cross and Habitat 
for Humanity combined.
    ``If anyone wants to save the planet,'' says Paul McCartney in an 
interview with PETA's Animal Times magazine from 2001, ``all they have 
to do is stop eating meat. That's the single most important thing you 
could do. It's staggering when you think about it.''

          ``Vegetarianism takes care of so many things in one shot: 
        ecology, famine, cruelty. Let's do it! Linda was right. Going 
        veggie is the single best idea for the new century.''

    Les Brown of the Overseas Development Council calculates that if 
Americans reduced their meat consumption by only ten percent per year, 
it would free at least twelve million tons of grain for human 
consumption--or enough to feed sixty million people.
                                 ______
                                 
                        Comment of Chris Musella
    Date Submitted: Saturday, May 19, 2012, 7:56 a.m.
    City, State: Brooklyn, NY
    Occupation: Restaurant Manager
    Comment: The importance of sustainable agriculture to our present 
and future food supply cannot be overstated. The relationship between 
our health and the food we eat is understood and indisputable. Congress 
must act on the behalf of the American people and maintain funding in 
the fields of sustainable farming, nutrition education and they must 
act to End the monopoly held by companies that do not support 
sustainable and organic farming.
                                 ______
                                 
                        Comment of Natasha Musil
    Date Submitted: Tuesday, May 08, 2012, 5:52 p.m.
    City, State: Seattle, WA
    Occupation: Housekeeper/Service
    Comment:

  <bullet> Reserve the term ``natural'' for non-GMO foods.

  <bullet> Require labeling for all GMO foods.

  <bullet> Require labeling for all animal products that have used 
        growth hormones and/or antibiotics during the animals lifespan.

  <bullet> Stricter guidelines for ``humane'' treatment of animals and 
        regulation of the use of the word ``humane'' in packaging.

  <bullet> Allow small family farms and back yard gardens/farms to 
        operate without regulations, period. Gardening and farming are 
        not only for profit but for family and community and therefore 
        should be protected from the same laws that govern large farms 
        and corporate farms.

  <bullet> The protection of small family farms and organic farms from 
        bullying and intimidation of corporate patent owners in the 
        case of accidental cross contamination of GMO plants.

  <bullet> Government support for farms being bullied, sued or 
        otherwise intimidated by corporations for accidental cross 
        contamination of patented GMO seeds/plants.

  <bullet> Subsidies for small family farms and organic farms for using 
        methane conversion for fuel.

  <bullet> Subsidies or tax breaks for small family farms or organic 
        farms and co-ops who participate in teaching sustainable 
        agriculture to the communities they serve.

  <bullet> Subsidies or tax breaks for small farms or organic farms 
        experimenting with alternative methods of perma/aquaculture 
        including vertical farming.

  <bullet> Subsidies or tax breaks for small family farms or organic 
        farms whose produce/products are sold and consumed within 50 
        miles of the farm (dis-including selling to a processor who 
        then sells the product nationally)

  <bullet> Subsidies or tax breaks for alternative agriculture programs 
        in urban area including community pea-patches, urban gardens, 
        rooftop gardens, vertical farming and more.

  <bullet> Ending the poor diets of farm animals, including cattle, 
        that requires the animals natural biology be altered. (i.e., 
        having holes to a cows stomach because their bodies are 
        processing too much grain)

  <bullet> Criminalizing the mutilation of chickens for confined egg 
        operations.
                                 ______
                                 
                         Comment of Alan Mussen
    Date Submitted: Sunday, May 20, 2012, 6:42 p.m.
    City, State: Franklin Square, NY
    Occupation: Stagehand
    Comment: Oil-based corporate agriculture does not produce food that 
is as healthy as that produced by small farmers. The health of the 
nation's people depends on the economic health of small farmers.
                                 ______
                                 
                         Comment of Mary Mutch
    Date Submitted: Thursday, May 03, 2012, 11:21 a.m.
    City, State: La Crosse, WI
    Occupation: Retired Office Worker
    Comment: The protections and policies contained in the farm bill 
are essential to continuing and maintaining the health and nourishment 
of All of the people in his country. That's a pretty hefty 
responsibility, so I urge you to give this issue careful and 
conscientious consideration. Thank You.
                                 ______
                                 
                        Comment of Georgia Myer
    Date Submitted: Monday, April 02, 2012, 8:58 p.m.
    City, State: East Calais, VT
    Occupation: Magazine Circulation Consultant
    Comment: It is essential that the farm bill be renewed so that the 
hungry in Vermont and elsewhere can rely on USDA to feed their families 
and themselves. Such an essential necessity shouldn't be held hostage.
                                 ______
                                 
                        Comment of Connie Myers
    Date Submitted: Friday, May 18, 2012, 1:23 p.m.
    City, State: Saint Charles, IL
    Occupation: Retired
    Comment: Please close Farm Service Agency state offices. Do 
Regional offices to administer programs. This could save at least $1 
million per state when you count all the administration salaries, rent, 
office supplies, office machines etc. There would be a possible savings 
of $50,000,000 per year. Keep the District Directors and county offices 
for the hands-on for farmers.
    A good Administration example is NCUA.
                                 ______
                                 
                         Comment of David Myers
    Date Submitted: Friday, May 18, 2012, 12:46 p.m.
    City, State: Framingham, MA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: If you insist on allowing people/corporations to put 
antibiotics, toxic chemicals, and/or GMOs in our food you should at 
least regulate that they Must mark them as such!
                                 ______
                                 
                        Comment of Kermit Myers
    Date Submitted: Friday, May 18, 2012, 8:08 p.m.
    City, State: Greensboro, NC
    Occupation: Landscaper
    Comment: End subsidies for corn and soy, give them to fruit and 
vegetable producers. Stop favoring GM crops and companies that produce 
them. Our nation's food security is at risk and our population is 
getting fatter and weaker.
                                 ______
                                 
                         Comment of Rene Myers
    Date Submitted: Friday, May 18, 2012, 11:47 a.m.
    City, State: Prescott, AZ
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery
    Size: Less than 50 acres
    Comment: Sir, I am a small scale farmer, producer, and Sustainable 
Food Systems Consultant and Analyst. Our current national food system 
has been hijacked by BIG Ag and BIG Pharma, particularly with the 
Corporation Monsanto. This organization has made it Illegal for 
Professional, ethical Scientists to conduct studies on the side effects 
and harm that studies have shown to influence many of our current 
immunity health problems today. In addition, the current WAR on Small 
Scale Farming, with the FDA arresting people for having a business 
providing raw milk, cheeses, and heritage animal meats is against 
Constitutional Rights for a Right To A Happy, and Productive Life. I 
cannot Urge you Enough to please remember why you took your oath and 
what it means to Serve the People. We deserve clean, healthy, 
nutritious food that each individual has chosen. This means Mandatory 
Labeling For Genetically Modified Organisms. This is more dangerous 
than terrorism across the world, this is Food Terrorism, taking over 
our entire food system, but especially the Natural Ecosystem through 
Bio-Pollution. Once it's in our natural ecosystem there is No Way To 
Retrieve It.
    Please support our farm bill and our right to public service to 
help feed the hungry, mothers and children.
    Thank you very much for your valuable time and thoughtful 
consideration.

Rene Myers.
                                 ______
                                 
                         Comment of Sheri Myers
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: McKinney, TX
    Occupation: Homemaker
    Comment: We support the farm bill 100% and everything it stands 
for. I am hoping that you will be our voice to congress to let them 
know this. Corporate agribusiness will continue their in their efforts 
to ensure that they continue to grow, making themselves wealthier at 
our expense and our grandchildren's. We may not experience the 
cumulative effects of corporate agribusiness, but if this farm bill is 
not passed, our children and theirs, will suffer for us. I know you 
will do the right thing and I thank you in advance.
                                 ______
                                 
                       Comment of Renee Mysliwiec
    Date Submitted: Friday, May 18, 2012, 1:49 p.m.
    City, State: St. George, UT
    Occupation: Massage Therapist
    Comment: As a massage therapist working in the health and wellness 
field, I recognize the connection between good health and diet. We need 
better nutrition in our lives and this will come primarily by having 
good healthy organic foods available to us. I feel that government 
should give farmers the freedom to farm the way they want to. We need 
to get rid of GMOs and allow our farmers to produce Real food again. 
The health and wellbeing of our nation depend on it.
                                 ______
                                 
                     Comment of Jane Nachazel-Ruck
    Date Submitted: Friday, May 18, 2012, 2:28 p.m.
    City, State: Los Angeles, CA
    Occupation: Administrative Assistant
    Comment: The U.S. currently has both a deficit crisis and an 
obesity crisis. The latter is estimated to generate more health-related 
costs than smoking--further adding to the deficit. Current farm 
policies reward agribusiness which does not need funding and generates 
many dubious products laden with pesticides and fertilizers that have 
been shown to harm health. Other ``farmers'' receive funds who do not 
even farm. We desperately need a new farm bill that supports organic 
and small farmers while maintaining healthful land practices for our 
future and supporting good food for ``food deserts.'' Don't waste our 
taxes! Target them where they will support healthful food and the land 
to grow/raise it rather than line corporate pockets. We know it's hard 
to stand up against lobbyists. But you took an oath to work on behalf 
of the people. Those people include your own families and friends. Help 
them and us live healthy lives. You can do it!
                                 ______
                                 
                        Comment of Ulrike Nagel
    Date Submitted: Friday, May 18, 2012, 12:02 p.m.
    City, State: Lee, MA
    Occupation: Fitness Trainer
    Comment: It makes no sense that big agro business is being 
subsidized, while farms who work on a sustainable basis are not. We do 
need food that is affordable, but that food should also be healthy for 
people, farmers and the planet. Food should never really be a business, 
the results of current farm bills are visible in the overload on our 
population's bodies (obesity and diabetes can be traced to corn 
subsidies), the healthcare system and the environment. We have a chance 
to rethink the system and I urge you to do so independently of current 
vested interests, in a truly democratic spirit.
            Sincerely,

U. Nagel.
                                 ______
                                 
                       Comment of Alexandra Nagy
    Date Submitted: Saturday, May 19, 2012, 11:52 a.m.
    City, State: Irvine, CA
    Occupation: Marketing Assistant
    Comment: Our current food system is unsustainable. We are producing 
food in a system that has internal contradictions and will not continue 
to exist if we do not begin to prioritize the future and health of our 
soils, water, crops, producers, communities, consumers and the Earth.
    I have talked with local farmers at OC Produce, Tanaka Farms and 
others, and they all agree that a sustainable food system is better for 
the health of our environment and communities. However, they also agree 
that it is difficult to enter this market because of competition 
worsened by the effects of the farm bill. The farm bill's priorities 
are not sustainable agriculture and farming. Instead they favor large 
subsidies to crops such as corn, soybeans and cotton. It is not 
surprising that these crops are having the largest negative impact on 
our soils, water and overall health. The subsidies for these staples 
have created a market situation that ignores environmental risks. I am 
asking that we rethink the farm bill to support organic agriculture and 
food systems.
    To be clear, I support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Congress must:

  <bullet> Implement a $25 billion plan to transition to organic food 
        and farming production, to make sure that 75 percent of U.S. 
        farms are U.S.D.A. organic certified by 2025.

  <bullet> Feed organic food to all children enrolled in public school 
        lunch programs by the year 2020.

  <bullet> Pass a Beginning Farmer and Rancher Bill to place a million 
        new farmers on the land by 2020.

  <bullet> Link conservation compliance with government-subsidized 
        insurance programs and create a cutoff so each farm receives 
        government funds for land only up to 1,000 acres.
                                 ______
                                 
                       Comment of Aristides Nakos
    Date Submitted: Wednesday, May 02, 2012, 10:50 a.m.
    City, State: Providence, RI
    Occupation: University Student
    Comment: Greeting dear Senator Cicilline,

    I am writing to provide my sentiments on the recently passed farm 
bill. First, of I applaud the revisions made that ultimately limit the 
amount of direct payments mega farms can receive. Nonetheless, there is 
an ensuing need for support of smaller, but promising markets, such as 
Farmers' Markets and the people behind them. Farmers' Markets are on 
the rise nationwide and they benefit small farmers that cannot compete 
with multinationals, while they embrace President Obama's Know your 
Farmer, Know your Food initiative. I've volunteered in a Farmers Market 
and have witnessed the excitement and demand present. With the 
government's aid of these markets farmers can become autonomous as well 
as the respective states. What is more, this will promote the wholesome 
practices that small farms with small gross margins are trying to make 
mainstream.
            Thank you for your time,

Aristides.
                                 ______
                                 
                         Comment of Kathy Nance
    Date Submitted: Sunday, May 13, 2012, 5:29 p.m.
    City, State: Rutherfordton, NC
    Occupation: Retired Social Work Administrator
    Comment: The farm bill must protect our environment from chemicals, 
unwanted genetic alterations, and other human induced factors that 
threaten the natural cycle of things (like killing bees). It must also 
protect and promote the small local farmer and not subsidize huge 
corporate farms that ship their product everywhere.
                                 ______
                                 
                       Comment of Raven Naramore
    Date Submitted: Friday, May 18, 2012, 8:48 a.m.
    City, State: Lawrence, KS
    Occupation: Caterer and Educator
    Comment: I heard a comment from a republican congressman the other 
day that said we should not judge success in this country by the number 
of people receiving food benefits, but by how many people graduate out 
of support programs. Closing the school does not increase graduation 
rates, it simply floods our communities with people with real human 
needs that are not being met by our social welfare programs, taxing the 
nonprofit communities resources. I would much rather see our country 
provide people with healthy food, than to see our tax dollars used to 
destroy homes, communities and disrupt the lives of millions of people 
through war. Is that how we should be judged, by how much money we put 
into the military, or by how much we take care of our own people?
                                 ______
                                 
                         Comment of Lisa Nardo
    Date Submitted: Sunday, May 20, 2012, 8:49 a.m.
    City, State: Delray Beach, FL
    Occupation: Manager
    Comment: Subsidies need to be ended. The impact on our nation's 
health is huge when our food supply is driven by what the govt. chooses 
to subsidize for our farmers.
                                 ______
                                 
                   Comment of Diane Nardone-McDonough
    Date Submitted: Friday, May 18, 2012, 11:58 a.m.
    City, State: Kittery, ME
    Occupation: Privacy Association
    Comment: The time has come for us to be smarter as a nation in the 
way that we feed ourselves. We're completely off track from where we 
should be. Our ``agribusinesses'' that are supposed to be producing 
foods to feed our country need to be re-focused on Health and not on 
profits & subsidies. Family farms must be permitted to flourish with an 
emphasis on Local production. This is the only way I can see that we 
can become a healthier nation and break away from the obesity (corn 
syrup loaded foods) now commercially produced for consumption.
                                 ______
                                 
                        Comment of Charlene Nash
    Date Submitted: Friday, May 18, 2012, 1:57 p.m.
    City, State: Chattanooga, TN
    Occupation: Horticulturist
    Comment: People in congress are not educated in food and 
agriculture and often depend on lobbyists to inform and make policy it 
would seem. People do have a right to clean food grown by farmers they 
know--any congressman who can study the science of GMO crops and still 
allow it has neither the depth nor intelligence to be in congress. Why 
money talks and good sense is thrown out these days should concern 
every congressman who cares about air, water, food that is not harmful. 
First do no harm--Monsanto, Dow, Syngenta can't say that--start 
rewarding good stewardship and not profit from dangerous practices.
                                 ______
                                 
                         Comment of Janet Nash
    Date Submitted: Friday, May 18, 2012, 6:54 p.m.
    City, State: Springfield, OR
    Occupation: Building Service Contractor
    Comment: We need a fair and healthy farm bill, and we need to 
support the smaller farmers who grow sustainably and organically to 
protect our human health and the environment, which large conventional 
agriculturalist Do Not Do.
    I support the local Foods, Farms and Jobs Act (H.R. 3286). Any new 
insurance subsidies should be tied directly to compliance with 
conservation programs like the Conservation Stewardship Program. I also 
support the implementation of all provisions of the Beginning Farmer 
and Rancher Opportunity Act (H.R. 3236). It is also imperative that we 
maintain the EQIP Organic Initiative.
    It is obvious that corporate agribusiness has a stranglehold on our 
regulatory system and our political leaders. It is shameful that the 
House Ag Committee is considering cutting out $4 million from organic 
research funding and cutting funding to support beginning farmers. 
Going back to smaller farms is the wave of the future and one of the 
ways we will protect our food systems. These smaller farmers need much 
more support and that's where I want my taxes to go. Not to large 
subsidies for large agribusinesses.
    The committee should also make sure that it does not create a new 
subsidized insurance program that is packed with opportunities for 
fraud and abuse by large agribusiness.
    I resent so much that our leaders allow large agribusiness to walk 
away with billions in taxpayer dollars while putting the land, soil and 
environment at greater risk. Our leaders are out of touch with the rest 
of the country and with what is required for a sustainable future in 
agriculture. We need ``real'' reform, not something that perpetuates 
the conventional systems that are not sustainable and which are harmful 
to the environment.
    Our leaders need to do their job, and that is to serve the American 
public, and do what's best for us--not what the large corporate 
agribusinesses and their lobbyists pay you to do!
                                 ______
                                 
                         Comment of Robin Nason
    Date Submitted: Friday, May 18, 2012, 3:39 p.m.
    City, State: Hartford, CT
    Comment: I've been homeless time after time and on the weekends 
there are no places to eat. My food stamps keep me from going hungry. 
And when I have a chance to be inside I can cook for me. I look for 
work every day and can't find work. People and companies are just not 
looking for a person in my age group. Thanks to SNAP, I can make it 
through the month and know that I'm not going to go hungry. And are 
there are soup kitchens and the people that help to look out for us. 
The American people.
                                 ______
                                 
                   Comment of Gretchen Brooks Nassar
    Date Submitted: Saturday, May 19, 2012, 2:45 p.m.
    City, State: Fort Collins, CO
    Occupation: Health & Nutrition Coach
    Comment: Dear Congressmen,

    As someone who talks with clients regularly about health in terms 
of diet and lifestyle as well as someone who consistently reads about 
and studies sustainable food issues, as well as someone who teaches 
about these issues, I know just how important the farm bill is to our 
communities.
    The current farm bill is doing the country and world a huge 
disservice by subsidizing the crops and farmers who create unhealthy 
food and engage in farming practices that are unhealthy, unsustainable, 
and abusive to land and animals. What we need now is a farm bill that 
supports small, family, local farms, and preferably ones that are 
organic or biodynamic. We need farmers that do not use GMO seeds or 
pesticides, and we need our animal foods to be produced on small, real 
farms, with attention to animal health, welfare, and care for animals 
and the land. The farming approach needs to be in line with the land, 
not against it.
    Today's huge Industrialized farms are out-of-touch with the land 
and are hurting the land, workers, nearby residents, are abusive to 
animals, and ultimately are creating foods that are harming Americans 
and people abroad.
    I hope you will take my comments seriously, and carefully consider 
how Congress can improve the farm bill by making it support 
sustainable, humane, healthy practices that do not support using 
harmful chemicals and harmful practices.
    Thank you for this consideration!
            Sincerely,

Gretchen Brooks Nassar.
                                 ______
                                 
                       Comment of Christy Nather
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Colorado Springs, CO
    Comment: Please do not stop supporting organic farming or new 
farmers. Our family only buys organic because we don't want to poison 
ourselves with all the pesticides and GMOs found in non organic. This 
needs to be our future.
                                 ______
                                 
                        Comment of Camille Nava
    Date Submitted: Friday, May 18, 2012, 2:55 p.m.
    City, State: Santa Cruz, CA
    Occupation: Student
    Comment: Dear Congressman Farr,

    The farm bill is one of the few pieces of our national legislation 
that touches so many people's lives so personally, in many places in 
the world. Respectfully, you understand the competing interests 
represented in the bill, and also you recognize perceived limits of 
change in any one bill. But I ask you to remember that unless our laws 
transcend the current limited adaptability to meaningful change, change 
done at the right time, it will be to our detriment. We can take this 
farm bill opportunity to be better leaders for our own country: foster 
diverse types of agriculture and dismantle the choke in our legal 
system expressed in our patents, laws toward chemical applications on 
soil. We can do much more--I think you know this. What the farm bill 
should expressly support right now are the thousands of government 
programs (state, Federal, local) and the non-government groups work on 
the public health epidemic of type 2 diabetes and obesity. Our farm 
bill can achieve many aims at one time, for the people. For the land, 
the water, the future generations, the biodiversity, the air. We can 
shift the foolish arguments away from questions of whether organic can 
feed the world: respectfully, we know that there are ample calories and 
nutrients to feed the world and still malnourishment and starvation 
persist. As you know, we have food policies which plan for and include 
enormous waste. And all this is the case before we even consider our 
growing trend of using arable land for biofuel production. When working 
on this farm bill, I hope you use the quiver for the people. We can 
take poisons, toxins, and an enormous amount of fossil fuels out of our 
farming systems. As you know, we have nothing to lose in trying. To not 
attempt to legally support* ways of farming that create less ecosystem 
and public health havoc is highly irresponsible.(*Remove current laws 
that serve nothing but corporate profit regarding gene patenting and 
suffocating Trade Agreements. As you know, these are a distortion of 
our democracy and should be outlawed.) It is not befitting of our 
nation.
            Sincerely,

Camille Nava.
                                 ______
                                 
                        Comment of Kelsey Naylor
    Date Submitted: Friday, May 18, 2012, 9:31 a.m.
    City, State: Ocala, FL
    Producer/Non-producer: Producer
    Type: Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: Our country is at a crossroads economically and socially. 
In order to create a healthier, more productive nation, we must look to 
the backbone of civilization; agriculture. Not just any agriculture 
will do however. We must consider the harmful effects of subsidy-
supported, industrial monoculture. If we want to ensure the future of 
Americans, we must look to more sustainable options. Small farmers 
across the country are making great sacrifices to do the right thing. 
They follow methods that increase soil fertility for future 
generations, provide greater animal welfare and maintain the crop 
diversity necessary to ensure food security. Most importantly, they 
provide nourishment for their community. These brave Americans must be 
encouraged rather than buried under corporate interests.
                                 ______
                                 
                         Comment of Karen Neal
    Date Submitted: Saturday, May 19, 2012, 7:38 p.m.
    City, State: Cherry Log, GA
    Occupation: Self-Employed
    Comment: I want to see future farm bills focusing on and lending 
much greater support to locally grown food produced by organic methods 
and the farmers who produce it. I am definitely against genetically 
modified food stuff. I am outraged that my choice of whether to 
knowingly eat genetically altered food has been totally taken away by 
big corporations & my Government. My Government is suppose to protect 
my right to choose, Not Choose For Me! Since my Government has already 
shoved this down the consumers throats and allowed my choice to be 
taken away by non-labeling of GM/GMO ingredients, I Say Fix This 
Atrocity So Consumers Can Exercise Choice between foods that have 
genetically modified, conventional or organic origins. I Want A 
Required Labeling System As Well As A Reliable Separation Of GM And 
Non-GM Organisms At Production Level And Throughout The Entire 
Processing Chain!
                                 ______
                                 
                        Comment of Kyle Needham
    Date Submitted: Friday, May 18, 2012, 1:04 p.m.
    City, State: Brooklyn, NY
    Occupation: Self-Employed
    Comment: Please create a farm bill that supports our development in 
a sustainable way without having the interests of industrial lobbyists. 
We are a nation that needs to look toward the future with our 
intentions for our citizens and an organic farm bill would do just 
that.
                                 ______
                                 
                        Comment of Tawni Neeser
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Anchorage, AK
    Occupation: Nurse
    Comment: America has gone from one of the greatest nations, to one 
of the worst. We also have one of the highest amounts of obese and sick 
people on Earth. I believe this is partly due to the fact that people 
eat what is ``quick and easy''. However, these ``quick and easy'' foods 
are not healthy foods and not good for our bodies. Our bodies don't 
recognize all these chemicals and hormones. Please make a bill helping 
small fresh organic farms. America needs to start fixing itself. 
Starting from the inside out. Thank you.
                                 ______
                                 
                        Comment of Martia Neher
    Date Submitted: Saturday, May 19, 2012, 12:58 a.m.
    City, State: Elgin, ND
    Occupation: Housewife
    Comment: I care about what I am feeding my family and big 
agriculture is not providing clean healthy food to choose from when 
will we actually get GMO foods labeled so I know which products are 
contaminated with pesticides and hormones? These things affect both 
people and the environment aka bees, weeds, and insect pests.
                                 ______
                                 
                         Comment of Helga Nehl
    Date Submitted: Friday, May 18, 2012, 2:46 p.m.
    City, State: St. Augustine, FL
    Occupation: Therapist
    Comment: It angers me that small farmers, health food co-ops are 
under attack and on the brink of extinction. This is a threat to the 
well-being of our country in more ways than one. First, this is 
supposed to be the land of the free and free enterprise. People have 
the right to pursue an honest livelihood. What can be more ethical than 
providing people with wholesome foods? Further everyone benefits from 
competition. Let the people decide what they want to buy! Allow more 
businesses to compete. We're a nation of sick people. Obesity continues 
to rise as does diabetes 2 in our children, unheard of in previous 
generations. If we really want to heal our people we should encourage 
the production of healthy foods instead of trying to put those farmers 
out of business. These are very strange times we live in. Corruption, 
dishonesty, sloth are being rewarded while honesty, initiative, a 
strong work ethic are being punished. It is my hope that this Congress 
does the right thing regarding our small farmers.
                                 ______
                                 
                         Comment of Jenna Nehl
    Date Submitted: Friday, May 18, 2012, 2:27 p.m.
    City, State: Seattle, WA
    Occupation: Holistic Health Practitioner, Esthetician
    Comment: You must be aware that food without spray, chemicals (yes 
the ones you see being sprayed over our fruits and veggies with men 
wearing protective face & body masks), and non-GMO are Extremely 
important for our Health, our environment, our animals, water supply, 
and our Future. Please help to make sure we are all protected. You guys 
are the ones who were voted on by us, to protect us. Please make sure 
we have all we need for good, clean, pure food. You are eating this 
too, your children, your families, friends. Our people are getting 
sick, and chemicals Should Not be on/in our food!
            Thank you,

Jenna N.,
Seattle, WA.
                                 ______
                                 
                        Comment of Terri Neifert
    Date Submitted: Friday, April 27, 2012, 10:12 a.m.
    City, State: Bethlehem, PA
    Occupation: Disabled
    Comment: I am a supporter of Feeding America and my local food 
bank. Despite the recent improvement of the economy, there are still 
many people who may not know where their next meal will come from. We 
need a strong farm bill to help put food on the table for vulnerable 
children, seniors, and low-income families. Please pass a farm bill 
that protects and strengthens programs like TEFAP, SNAP, and CSFP. 
Cutting these programs is not the way to balance the budget. I urge you 
make them a priority in the next farm bill.
    Also, I am on disability and need food bank every month. I don't 
qualify for food stamps. I am aware that pregnant women, children under 
5 and senior get vouchers for fresh fruits and vegetable. I think since 
I qualify for medical assistance and Medicare that I should be given 
access to those food vouchers too. Can't you give them to all low 
income people on SSDI? Every month, I run out of food.
                                 ______
                                 
                        Comment of Carol Neiman
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Junction, TX
    Occupation: Freelance Editor, Part-Time Secretary, Semi-Retired
    Comment: Dear Rep. Conaway,
    I quote:

          ``The Agriculture Committee put forward a proposal that will 
        make significant reforms to SNAP. Our package contains new 
        measures designed to better catch misuse and abuse in the 
        program and ensure that the folks who actually need SNAP 
        benefits continue receiving them.
          SNAP will continue to be an important part of the safety net 
        for many Americans in need, however support must continue to 
        come from the communities we live in and the friends and family 
        that surround us.''

    I live in a food desert, with only one supermarket that sells 
overpriced staples and a limited supply of produce, much of which is 
hybridized for long shelf life and, even at that, looks like the 
remains of what other stores passed by at least a week ago. When I look 
around me, I also suspect I live in an epicenter of the American 
obesity epidemic. There are less than a handful of local restaurants, 
but an abundance of fast-food chains thanks to Interstate 10 on the 
edge of town.
    Crafting a farm bill that truly begins to address these problems by 
supporting sustainable farming and healthier food choices for everyone 
would in fact be of help to my community, friends, and family. Maybe 
some day, we would even no longer have to drive at least an hour in the 
direction of I-35 to get a variety of fresh, locally grown produce.
    I realize that a thoughtful approach to examine all the toxic side 
effects--on people's health and on the health of the land--of our 
current ``big agribusiness'' centered policies is not easy. It's also 
probably not very good for your campaign coffers. Ordinary folks and 
real farmers, after all, don't have that much money to give to 
politicians or to pay lobbyists to represent their interests. But as I 
see it, this is your job--not raising money for your next campaign. If 
you'd like to do the job of representing all of your constituents, and 
not just those with big money and a vested interest in making even more 
of it, please consider the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

            Respectfully,

Carol Neiman.
                                 ______
                                 
                        Comment of Zachary Nelms
    Date Submitted: Friday, May 18, 2012, 10:57 p.m.
    City, State: Portland, OR
    Occupation: Physician
    Comment: It is important that we remove subsidies for unhealthy 
farming practices such as meat and corn production and give subsidies 
to vegetable and fruit producers. This will in effect give the public 
incentives to consume healthier food leading to a healthier population 
and lower overall health care costs.
                                 ______
                                 
                        Comment of David Nelson
    Date Submitted: Friday, May 18, 2012, 4:49 p.m.
    City, State: Madison, WI
    Occupation: Ag Researcher
    Comment: Food is a policy area which often receives short shrift in 
deciding priorities. Please ensure a safe food system, and enable any 
citizen the right to participate in farming and urban agriculture. Many 
of the agricultural products we sell for consumption are not healthful 
and in some cases contain little we should consider food.
                                 ______
                                 
                         Comment of Greg Nelson
    Date Submitted: Friday, May 18, 2012, 12:36 p.m.
    City, State: Ithaca, NY
    Occupation: Software Engineer
    Comment: I wanted to let you know that I strongly support our small 
farmers in NY. I would like to see subsidies for huge agribusiness 
curtailed so that small farmers would have a fair chance. Small farms 
provide far more jobs than large ones do, and as you know our country 
needs jobs. You don't want to be on record as opposing job creation, 
right?
    I strongly support the Local Foods, Farms and Jobs Act (H.R. 3286) 
and the Beginning Farmer and Rancher Opportunity Act (H.R. 3236). I 
would also like to see a continuation of the EQIP Organic Initiative.
    Thank you for your consideration. We are paying attention to what 
you stand for.

Greg Nelson,
Ithaca, NY.
                                 ______
                                 
                         Comment of Jon Nelson
    Date Submitted: Saturday, May 19, 2012, 4:01 p.m.
    City, State: Penn Valley, CA
    Occupation: Engineer
    Comment: I am very troubled to see the corporate lobbying and 
pressure from the likes of Monsanto so often trumps the will and 
benefit of citizen/voters, science and the environment. When enough 
people wake up to this the future of those politicians who have allowed 
this to happen will suffer, as it should.
                                 ______
                                 
                       Comment of Nancy Nestaval
    Date Submitted: Tuesday, March 20, 2012, 3:25 p.m.
    City, State: Lubbock, TX
    Occupation: Retired Communications Manager
    Comment: I believe farm subsidies are misguided. If free market 
conditions prevailed, farmers would diversify their crops according to 
demand. The country should never have put a subsidy on ethanol. That 
skewed food supplies around the globe. We don't need to give corporate 
farmers any more help.
                                 ______
                                 
                         Comment of Judy Neuger
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Moreland Hills, OH
    Occupation: Homemaker
    Comment: The saying goes, ``We are what we eat''. Please consider 
what you are giving us and the following generations to eat. What goes 
in the ground today becomes the food on the shelves tomorrow. Hopefully 
you will not be persuaded by Monsanto money, but by the quality of life 
you want your constituents to have.
                                 ______
                                 
                       Comments of Marcy Neville
    Date Submitted: Tuesday, March 20, 2012, 9:30 p.m.
    City, State: Keene Valley, NY
    Producer/Non-producer: Producer
    Type: Livestock, Dairy
    Size: Less than 50 acres
    Comment: Please require labeling of GMO's. I am forced to buy 
expensive organic feed for my animals to avoid feeding ``Round-Up'', a 
known carcinogen, to them. Since the EPA approved ``Round-Up ready'' 
alfalfa, corn, and soybeans, my feed supplier has no way of knowing if 
their feed contains this, thus they lose me as a customer, and I am 
forced to pay a premium I can't afford.
    Date Submitted: Friday, May 18, 2012, 11:58 a.m.
    Comment: Labeling of GMO's would really help control my operation's 
feed costs. I cannot feed ``Round-Up Ready'' products and so am forced 
to buy organic grain which is costly and not widely available. Please 
Label GMO's!
                                 ______
                                 
                       Comment of James Newberry
    Date Submitted: Friday, May 18, 2012, 5:35 p.m.
    City, State: New Haven, CT
    Occupation: Lighting Equipment Sales
    Comment: This indebted country needs to stop subsidizing Big Oil 
and Big Ag. We should allow millions of Americans to start farming 
again through the encouragement of organic family farming, along with 
the educational, security and economic advantages this could provide.
                                 ______
                                 
                       Comment of Ariana Newcomer
    Date Submitted: Saturday, May 19, 2012, 12:02 a.m.
    City, State: Los Gatos, CA
    Occupation: Voice Teacher & Coach
    Comment: Our farm policy needs to be amended to promote the 
production of fruits and vegetables over grains, and to protect humans 
and environment from GMO ``foods'' that are destroying our soil 
microbiology, creating super-weeds and promoting the overuse of 
chemicals.
                                 ______
                                 
                        Comment of Dawn Newcomer
    Date Submitted: Friday, May 18, 2012, 11:51 a.m.
    City, State: Spring, TX
    Occupation: Marketing Consultant
    Comment: Small family farms need support, especially in organic 
practices. Large industrial agriculture has too much power. Help to 
level the playing field by supporting small organic farmers trying to 
compete in the marketplace.
                                 ______
                                 
                       Comment of Shellie Newell
    Date Submitted: Friday, April 20, 2012, 3:31 p.m.
    City, State: Graniteville, SC
    Occupation: Biomedical and Science Editor
    Comment: Thank you for working hard on this Bill. Unfortunately, it 
continues to reward large agribusinesses and does not support organic 
farming families. Seed diversity is important, as are: support of local 
farmers' markets; food programs for needy children and elderly; 
hormone-free/slime-free/bacteria-free meats and vegetables (don't 
decrease the number of USDA Inspectors); and public education. Also 
critically important are developing nontoxic pesticides and fertilizers 
that preserve/create clean groundwater; collecting animal waste for 
methane generation; and utilizing systems (e.g., Habitat for Humanity 
strategies) for efficient farming techniques. Please do not support the 
underwriting of petroleum-based agri-products. The health of our nation 
depends on your vote. Thank you for listening.

Ms. Shellie Newell.
                                 ______
                                 
                        Comment of Leone Newmark
    Date Submitted: Friday, May 18, 2012, 3:34 p.m.
    City, State: Davie, FL
    Comment: Only support local and organic and sustainable farmers, 
Not factory farms Bad for animals and humans and the planet. Stop large 
agribusiness support and No more Round Up or GMO/GE Monsanto toxic 
foods!
                                 ______
                                 
                       Comment of Cecelia Newton
    Date Submitted: Friday, May 18, 2012, 10:51 p.m.
    City, State: Minneapolis, MN
    Occupation: Retired Educator
    Comment: We need a farm bill that provides for healthy food and a 
healthy environment. Fully fund conservation and make sure new 
insurance subsidies are directly tied to complying with conservation 
programs. Support all provisions for beginning farmers.
            Thanks,

Cecelia Newton.
                                 ______
                                 
                       Comment of Heather Newton
    Date Submitted: Friday, May 18, 2012, 6:26 p.m.
    City, State: Portland, OR
    Occupation: Writer/Editor
    Comment: The megalithic factory farming in this country is 
unhealthy for people and the environment. We must change the model to 
focus on health and sustainability instead of huge profits for the few.
                                 ______
                                 
                         Comment of Joe Newton
    Date Submitted: Friday, May 18, 2012, 12:09 p.m.
    City, State: Brooklyn, NY
    Occupation: Teacher
    Comment: Healthy food is a critical aspect of keeping our families 
strong and healthy, and thus productive.
    I have great concern about the tendency to favor mega-farms over 
independent producers, primarily because the big agribusiness companies 
become focused on the bottom line, rather than creating a healthy food 
supply.
    Please ensure the laws are designed with the well being of our 
citizens in mind, rather than catering to the needs of giant 
corporations.
    If you keep that idea in mind (truly and honestly) then I am sure 
you will make the right choices. For me that means supporting 
diversity, organics, local farm movements, and protecting the 
environment against unnecessary chemicals, etc.
    My thanks for your time.
                                 ______
                                 
                       Comment of Marilyn Newton
    Date Submitted: Thursday, May 17, 2012, 2:12 a.m.
    City, State: Milwaukee, OR
    Occupation: Retired Wallpapering Contractor
    Comment: It is essential for the farm bill to increase support for 
programs that deliver needed nutrition to hungry children and families. 
The numbers in need are rising yearly, this is no time to reduce 
support.
    Also important is aid to Family Farms and rural communities. 
Factory farms should not receive Federal dollars. There should be a cap 
on farm aid in order to weed out the factory farms that are well able 
to pay their own way. $275,000 per family farm would be a reasonable 
limit for subsidies.
    Look at the real needs of real people, not political posturing. 
Work for the common good.
                                 ______
                                 
                       Comment of Jeannie Nichols
    Date Submitted: Sunday, May 20, 2012, 5:30 p.m.
    City, State: Tularosa, NM
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Fruits, Vegetables
    Size: Less than 50 acres
    Comment: I am in my first year of production at this location after 
many years of not. I value clean food that has not had chemical 
exposure.
    I abhor what big business is doing to the food widely available to 
the general public. I endorse organic farming, and hope to produce more 
of those items. While
    I am not a public speaker I urge those in public `service' to 
listen to the intent of my words and those of others who choose to 
address you and produce food. Food that is clean and free of the taint 
of chemicals. Our bodies were not designed to process chemicals. The 
state of the general public's state of being is far too often way short 
of radiant health. Clean food can help change that.
    Personally I have eradicated from my intake most additives in food. 
I have energy and health and perform at the level of half my years. I 
look forward to being able to find clean food more easily in the 
future.
    Thank you for the opportunity to voice my opinion.
            Respectfully,

Jeannie Nichols, SCCI(e).
                                 ______
                                 
                        Comment of Jenny Nichols
    Date Submitted: Saturday, May 19, 2012, 5:07 a.m.
    City, State: Sun Valley, NV
    Occupation: Artist
    Comment: We need farming policies that protect not just the 
corporations and producers, but the people who must consume these 
goods. We need to make good policy that keeps the health and welfare of 
our citizens in mind. Let's make good policy!
                                 ______
                                 
                       Comment of William Nichols
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: West Lebanon, NH
    Occupation: Teacher
    Comment: We need a farm policy that shifts subsidies from large, 
wealthy agribusinesses to small, sustainable growers. We need a policy 
that does not encourage the use of food as biofuels. In this time of 
unemployment we need a farm policy that doesn't drive people away from 
rural communities to cities. We need a farm policy that creates jobs 
and protect soil and water.
                                 ______
                                 
                Comment of Margaret ``Ka'imi'' Nicholson
    Date Submitted: Saturday, May 19, 2012, 3:19 p.m.
    City, State: Honolulu, HI
    Occupation: Minister
    Comment: My health depends upon eating food that is free of the 
toxins of pesticides & GMOs. Federal U.S. subsidies of agriculture are 
supporting toxic means of farming & corporate control by five companies 
over 95% of our food supply. If we are going to support agriculture, it 
should be to family farmers growing organic food for their communities, 
for the health of our land & our people.
    Thank you.
            Aloha,

Margaret ``Ka'imi'' Nicholson.
                                 ______
                                 
                       Comment of Norma Nicholson
    Date Submitted: Sunday, May 20, 2012, 9:22 a.m.
    City, State: Columbia, TN
    Occupation: Retired
    Comment: I was raised on a farm and know the importance of having 
Real food produced from Non-GMO seeds that produce healthy food for all 
kinds of animals (including humans)). The artificial foods produced by 
the GMO seeds and food industry are literally killing all life form on 
the planet and causing all kinds of disease.
    This kind of treachery must be stopped and commercial farms must be 
stopped.
    We need small farms that get a fair price for their work and the 
ability to do direct sales to the public without government 
interference in free commerce. The current terrorism by law enforcement 
in farm sales is illegal and should be treated as such. The consumer 
has a right to determine what they eat and where they get it, be it a 
grocery, home garden or from a farmer or neighbor. This is 
Unconstitutional restriction of commerce and has to stop.
    Give freedom back to the people and stop Big Brother.
                                 ______
                                 
                         Comment of John Nicol
    Date Submitted: Thursday, May 10, 2012, 12:25 p.m.
    City, State: Portland, OR
    Occupation: Residential Architecture
    Comment: At age 72, I am still working when I can. My self-employed 
wife has seen her income shrink by \2/3\. Social Security and her 
income do not support us fully, and we rely heavily on SNAP to sustain 
us. We are typical of many Americans who have seen bad policy and greed 
strip them of their incomes. I am in the street with Occupy, and I can 
tell you that, if you don't keep the people fed, you are looking at a 
revolution.
                                 ______
                                 
                        Comment of Nikki Nicola
    Date Submitted: Friday, May 18, 2012, 1:48 p.m.
    City, State: Davis, CA
    Occupation: Integrated Pest Management Researcher
    Comment: With obesity becoming more prevalent in our population, it 
is more important now than ever to subsidize fruits, nuts, and 
vegetables, and not the commodities grown to produce cheap sources of 
meat and corn syrup.
    Not only is factory farmed meat a huge source of pollution and 
greenhouse gasses, it is insidiously inhumane. Smaller, diverse farms 
require fewer chemical inputs, are safer for the environment, buffer 
against wide spread crop loss, and employ more people.
    I hope you will consider the health of the people and environment 
over the wealth of giant agro-industry.
            Sincerely,

Nikki Nicola.
                                 ______
                                 
                        Comment of Anne Nicolson
    Date Submitted: Friday, May 18, 2012, 6:33 p.m.
    City, State: Pleasant Hill, CA
    Occupation: Retired Educator
    Comment: I want sustainable agriculture so that my grandchildren 
and their children can also eat. Let's end monoculture and quit giving 
indirect subsidies to Monsanto. They don't need my money.
                                 ______
                                 
                       Comment of Valerie Niemann
    Date Submitted: Sunday, May 20, 2012, 6:44 p.m.
    City, State: San Francisco, CA
    Occupation: Gardener
    Comment: Farm bill money should be spent on keeping citizens 
healthy, not corporate C.A.F.O.'s. School lunch programs should benefit 
as well as Organic farmers and ranchers. Not Monsanto, and Cargill.
                                 ______
                                 
                       Comment of Steven Nienhaus
    Date Submitted: Wednesday, April 11, 2012, 6:32 p.m.
    City, State: Silver City, NM
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: Whatever you do, don't reduce the amount of food getting 
to the hungry. We have enough problems as it is. If food starts to go 
away what do think this is going to mean for people living in food 
deserts such as this county in southwest New Mexico. We have way too 
many people without resources to feed thems. Don't make it worse.
                                 ______
                                 
                     Comment of Robert Nierrernard
    Date Submitted: Friday, May 18, 2012, 3:47 p.m.
    City, State: Hartford, CT
    Comment: This will not be fair to those who receive SNAP food. Why 
tear something from those who need it, such as myself. Things are 
getting worse and not better and struggling with bills and hard to get 
food for my household and I need and rely on SNAP to help me get some 
food for me and my family.
                                 ______
                                 
                        Comment of Alison Nihart
    Date Submitted: Friday, May 18, 2012, 4:39 p.m.
    City, State: Burlington, VT
    Occupation: Student
    Comment: To the members of the House Agriculture Committee:

    I would like to see funding for a program that trains new farmers 
in low-input methods. This would highlight sun-based systems that 
utilize human and animal labor in place of fossil fuels and crop 
rotation and other agroecological methods in place of synthetic 
chemicals. This is a matter of national security, as future oil price 
increases and supply shortages will have significant negative impacts 
on our current food system. We need a fleet of ready-trained farmers 
who can produce high yields using low-input agricultural methods. This 
funding could be distributed to programs that are already involved in 
these efforts in order to increase their capacity and provide 
scholarships for students.
    I would like to see the conservation program budgets increased and 
the commodity subsidies decreased. I understand that commodity farmers 
are struggling to make ends meet, but I would rather see loan 
forgiveness programs than yearly payments through a system that 
artificially lowers the cost of commodities. I am tired of having my 
tax dollars subsidize soft drinks and other unhealthy, highly processed 
foods made from cheap corn.
    I would like the School Lunch and Breakfast Programs to include 
more provisions that allow schools to source local and organic 
ingredients, even if they are not the least expensive option.
    I would like to see continued support for nutrition assistance 
programs across the board.
    Last, I would like to see funding for programs that help farmers 
transition to organic and sustainable farming practices, including 
funding to cover the cost of training and organic certification.
    Thank you very much for your continued work.
                                 ______
                                 
                     Comment of Katherine Nikolaiev
    Date Submitted: Friday, May 18, 2012, 4:28 p.m.
    City, State: Magnolia, TX
    Occupation: Homemaker
    Comment: We have had cancer in our family. I choose organic foods & 
do not want mass produced food laced with pesticides. I would prefer 
subsides to go to smaller, organic farms, not big business that churns 
out unhealthy foods made with cheap GMO foods. I want GMO food labeled. 
I am a Republican and want government to support business, but I also 
want to eat healthy foods. Government has to pay a lot of money for 
sick people's medications, operations and treatments. Healthy citizens 
are a good thing for the budget. Please care about the people and their 
health over big business. Thank you.
                                 ______
                                 
                       Comment of June Nishihara
    Date Submitted: Friday, May 18, 2012, 1:56 p.m.
    City, State: West Linn, OR
    Occupation: Legal Asst.
    Comment: Healthier farming practices translates to healthy 
citizens. Our future generation depends on It. Do you really want your 
family, friends and neighbors to suffer from various forms of cancers, 
tumors and other ailments stemming from the consumption of toxic 
chemicals?
                                 ______
                                 
                        Comment of Denise Noble
    Date Submitted: Friday, May 18, 2012, 8:21 p.m.
    City, State: Richmond, VT
    Occupation: Stay-at-Home Mom
    Comment: I'm writing to let you all know that I support and would 
like you to support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative

    We have got to get our country out of mega-agriculture and back to 
supporting local and organic farms. We are being poisoned by the 
genetically altered, pesticide ridden ``food'' that is being mass 
produced . . . not to mention the harm that it does to our natural 
resources. Please take steps in the right direction to give every 
American affordable, locally grown and organic whole foods. Our country 
will be a heck of a lot healthier and well off in so many ways.
    Thank you!

Denise Noble.
                                 ______
                                 
                         Comment of June Noble
    Date Submitted: Monday, May 14, 2012, 10:28 p.m.
    City, State: Carmel, IN
    Occupation: Retired
    Comment: I'm retired. I have access to a wee bit of land. I have 
bones with lots of slowing memory. I cannot feed myself with what I can 
grow. We need our farmers.
    And while you are at it--would be nice to repeal the awful postal 
reform legislation passed many moons ago . . . shame on you.
                                 ______
                                 
                        Comment of Nancy Nodell
    Date Submitted: Friday, May 18, 2012, 12:05 p.m.
    City, State: Naples, FL
    Occupation: Retired
    Comment: Please don't cut funding to vital programs such as 
nutrition, conservation and support for organic and sustainable 
agriculture. Our health and the livelihood of farm workers depend on 
adopting the best agricultural practices.
                                 ______
                                 
                         Comment of Susan Noel
    Date Submitted: Saturday, May 19, 2012, 10:01 p.m.
    City, State: Espanola, NM
    Occupation: Retired Programmer
    Comment: Fully fund programs that support beginning and socially 
disadvantaged farmers and ranchers, organic farming, regional farm and 
food economies, and rural development. We need more farmers and 
ranchers, more sustainable food production, and more economic 
opportunity in our food system. Stop giveaways to big Ag.
    Protect the Conservation Stewardship Program (CSP) from 
disproportionate cuts, and improve it by ranking applications solely on 
their conservation benefits.
                                 ______
                                 
                        Comment of Travis Nolen
    Date Submitted: Friday, May 18, 2012, 2:55 p.m.
    City, State: Fresno, CA
    Occupation: Disabled Vet
    Comment: I personally believe that organic farming is the 
revitalization of the country and could easily be the end to world 
hunger. A subject of extreme importance.
                                 ______
                                 
                       Comment of Kristof Nordin
    Date Submitted: Saturday, May 19, 2012, 1:53 a.m.
    City, State: Holmen, WI
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: The farm bill should be used to ensure the sustainability 
of agriculture in harmony with the natural systems that allow 
agricultural production to take place. Subsidies should not be given to 
huge corporate farming schemes, they should be used to help smaller 
start-up industries and to encourage new innovations in organics, 
alternative energies, and sustainable methods. Currently the farm bill 
seems to be heavily weighted towards large, unsustainable, chemically-
laden, industrial approaches to food production . . . it would be nice 
to see the farm bill reflect policies that ensure a healthy future for 
people and the Earth that sustains us.
                                 ______
                                 
                     Comment of Katharina Nordmann
    Date Submitted: Friday, May 11, 2012, 2:48 p.m.
    City, State: Carle Place, NY
    Occupation: Mother
    Comment: My deepest concern is the humane treatment of farm 
animals. I know about the cruelty that goes on factory farms and it 
sickens me that humans are allowed to get away with this kind of 
treatment of God's creatures. Animals are abused, tortured, babies 
taken from their mothers. The list goes on. I urge you to view these 
videos and you will be sickened too, and will be looking for reform. 
This is all passed on to us in the form of contaminated meat, and dairy 
products that come from cows that are forced to produce milk in a way 
that is not natural. We will all pay the price in the long run when the 
planet is ridden with cancer and disease.

          http://www.youtube.com/
        watch?v=bNY4Fjsdft4&list=PL43796356A6DFD781&index=1&feature=plcp

          http://www.youtube.com/watch?v=B-EDBdGU5fA&feature=share
          http://www.youtube.com/watch?v=GzS8p727gvM&feature=share

    Thank you for your time.
            Sincerely,

Mrs. Katharina Nordmann.
                                 ______
                                 
                       Comment of Susan Nordquist
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: Salem, NY
    Occupation: NYS LMT
    Comment: Please get real before it's too late and help fund local 
organic/bio-energetic food production--stop poisoning our food supply. 
Look deeply into your hearts for the truth of being human.
                                 ______
                                 
                        Comment of Raun Norquist
    Date Submitted: Friday, May 18, 2012, 9:32 a.m.
    City, State: Sag Harbor, NY
    Occupation: Architect
    Comment: We need to stop subsidizing mega farms that use harmful 
practices, too much insecticide, too much fertilized, too much 
concentrated waste . . . and develop a farm policy that can produce 
Good from healthy farms and animals. I don't need GMOs, antibiotics or 
growth hormones from my food.
                                 ______
                                 
                      Comment of Kaleopono Norris
    Date Submitted: Friday, May 18, 2012, 4:50 p.m.
    City, State: Holualoa, HI
    Producer/Non-producer: Producer
    Type: Fruits, Nuts
    Size: Less than 50 acres
    Comment: Eliminate subsidies that enable huge agriculture 
production, processing and marketing corporations to sell product at 
below small farm costs of production. The playing field truly needs to 
be leveled! Broad public interest requires policy that guides the 
population into healthy eating habits, instead of the cheap industrial 
food lacking many important nutrients, filled with sugar and fat that 
promotes obesity, a cascade of medical problems . . . all of which 
costs the taxpayers--not the purveyors of this poison--end up paying 
for. The system is absolutely insane! Ho'oponopono it!
                                 ______
                                 
                       Comment of Patricia Norris
    Date Submitted: Friday, May 18, 2012, 7:55 p.m.
    City, State: Willits, CA
    Occupation: Associate Professor of Psychology
    Comment: It is time to create a farm policy that puts priority on 
the health and well being of the land, and the citizenry, and all of 
life. It is important to have a policy that features organic food, 
sustainability, nutritive value of the land, and that avoids, as much 
as possible, pesticides and toxins on the land. I trust that you will 
do what you can to move in this direction with farm policies, for 
better health and livelihood. Respectfully submitted.
                                 ______
                                 
                        Comment of Scott Norris
    Date Submitted: Saturday, May 19, 2012, 6:45 p.m.
    City, State: Broomfield, CO
    Occupation: Computer Administrator
    Comment: Please do not cut funds for nutrition, conservations and 
support for organic and sustainable agriculture. Our Nation's health 
and well-being are at stake! I know many people with horrible food 
allergies (including my children). I have no doubt whatsoever that 
pesticides, genetic modified crops and pollutants are major factors in 
the increasing population of people with food allergies.
                                 ______
                                 
                        Comment of Kim Northrop
    Date Submitted: Friday, May 18, 2012, 10:20 a.m.
    City, State: Sarasota, FL
    Occupation: Marketing Consultant
    Comment: Hi,

    I think fair and sustainable food production is a key defense and 
economic issue. Dependence on one or two U.S. food producers and key 
crops, or non-native food resources, puts us unnecessarily at risk or 
resource disruption.
            Thank you,

Kim Northrop.
                                 ______
                                 
                         Comment of Dean Norton
    Date Submitted: Tuesday, March 20, 2012, 8:27 p.m.
    City, State: Elba, NY
    Occupation: President, State Board of Directors, New York Farm 
Burea
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 500-999 acres
    Comment: On behalf of New York Farm Burea's nearly 30,000 members, 
thank you for allowing our organization to submit comments for the 
record of your Farm Bill Field Hearing in Saranac Lake, N.Y. Our 
farmers were thrilled that the committee selected New York State as one 
of four field hearing locations and I hope your time in Upstate New 
York allowed you to see the great diversity of agriculture that we are 
fortunate enough to have in the Northeast. I hope you were also able to 
gain a better understanding of the unique challenges our farmers face 
and that you could spend time thinking about how these could best be 
addressed in the next farm bill.
    Our farmers know this farm bill will be negotiated during an 
extremely difficult budget environment and that there will likely be 
cuts to all titles of the farm bill. Farmers are prepared to do their 
part, but we don't want to see the core farm programs receive 
disproportionate cuts and that important safety nets are in place for 
all commodities. Similarly, we would like to see cuts taken 
thoughtfully as this bill will set farm and nutrition policy for the 
coming 5 years. This will be our policy whether the farm and general 
economy is good or bad, so we must take into consideration both 
environments, regardless of the prevailing conditions today.
Commodities
    Even though many commodities are receiving strong prices now, there 
is no guarantee they will stay that way and the farm bill must be 
structured to consider all market scenarios. We cannot make excessive 
cuts to the core commodity programs that actually help farmers grow 
food if we expect them to continue feeding a growing world population 
with healthy, safe food. Cuts that erode the foundation of our safety 
nets and risk management tools place our agricultural system and our 
nation's food security at risk.
    That said, we are supportive of cutting the direct payment program 
in favor of more crop insurance-type solutions that meet the needs of a 
broader range of agricultural producers. Enacting different programs 
for each commodity is a poor use of our time and Federal resources. 
Instead, we should focus on a broad-based solution that can be easily 
tailored to meet the needs of each farmer.
Dairy Policy
    New York is the fourth largest dairy producing state and accounts 
for \1/2\ of the agricultural receipts in the state, so the 
sustainability of dairies of all sizes is of significant importance to 
New York Farm Bureau.
    Dairy policy needs to undergo a major change in the coming farm 
bill to meet the needs of today's dairy community. Outdated policy has 
left our farmers with safety nets that just aren't strong enough for 
the excessive peaks and valleys experienced in dairy and feed prices 
during the last \1/2\ decade. Milk price and input price volatility 
have made farm profitability difficult to attain. Right now milk prices 
are projected to decline this year and fuel costs are taking off. The 
Federal safety net programs must to be tweaked in order to help 
producers survive the next 5 years of uncertain market stability.
    The existing safety net programs, like the Milk Income Loss 
Contract and Dairy Price Support Program, just aren't working. MILC did 
provide some relief during the 2009 pricing crisis, but was not able to 
sufficiently bridge the gap. Even though this has been a reasonably 
good program for our smaller dairies, our farmers recognize that this 
program is not really meeting the needs. DPSP has lost relevancy with 
our current economic realities and provided no assistance during the 
2009 pricing crisis. Both of these programs should be replaced in the 
next farm bill.
    Our farmers support the tenets of a dairy margin insurance program 
and a voluntary supply management program as included in Congressman 
Peterson's Dairy Security Act (H.R. 3062). We would like to see this 
plan move forward, but it is important to note that should this be 
adopted it will take time to implement by USDA. In the interim, it is 
important that dairies, especially smaller farms, not be left without a 
safety net--this is why we believe MILC must remain in force until a 
new program is working.
    Also, on the topic of crop insurance, dairy farmers in our state 
are very interested in the Livestock Gross Margin for dairy program 
since it is the only insurance product currently available that 
protects the margin between dairy prices and feed costs. However, only 
a very limited number of producers in the state have been able to take 
advantage of this program because of its severe underfunding. I 
understand the last sign-up period closed in 20 minutes and hundreds of 
dairies in New York alone were shut-out. This is an important program 
that's working and I hope you will look at better funding this in the 
next farm bill as it could play an important role as a next-generation 
risk management tool for our farms.
Crop Insurance And Risk Management
    Crop insurance and other risk management tools work well for a 
number of crops, but not necessarily all of the products we grow in New 
York, as the severe floods in New York this past fall demonstrated. As 
direct payments are closely scrutinized, crop insurance will continue 
to evolve and become a more important risk management tool. We just 
need to make sure it is meeting the needs of specialty and livestock 
producers so they are as protected as traditional row crop farmers.
    Many of our specialty crops still suffer from a lack of adequate 
crop insurance options and don't have the risk management tools they 
need to protect their farms. Diversified farms manage their risk to a 
large degree simply by being diversified, but as we saw this past year, 
these farms can't protect themselves from catastrophic losses that wash 
away entire farms.
    There are very limited crop insurance options for our farmers, 
especially those growing for the fresh market--apples, potatoes, sweet 
corn, and in a few counties, onions and cabbage--so all other 
operations have to rely on the Non-Insurance Assistance Program (NAP).
    NAP requires a 50 percent loss before there is any payment to 
farmers, and then even with a complete crop loss, farmers really only 
get assistance for 25 percent. This program is part of the eligibility 
for disaster assistance programs, but doesn't really provide 
catastrophic loss protection, let alone serving as a substitute for 
crop insurance.
    Our farmers in New York are asking that Congress instruct USDA to 
look at crop insurance options, run the numbers, and develop crop 
insurance options that would adequately protect our specialty crop 
farmers, including multi-crop operations. Our farmers can offer 
feedback and assistance, but to develop an actuarially sound program 
that could protect these types of operations, we really need the 
assistance of USDA's expertise.
    In addition, our specialty crop farmers would like to see the next 
farm bill include a buy-up option for NAP. In the absence of crop 
insurance options that meet their needs, this would allow farmers to 
better protect the key crops on their farms. Streamlined record-keeping 
for multi-crop farms would also help farmers with sometimes 30 or 40 
different crops, remain complaint with NAP paperwork more easily.
    One of the problems facing all our producers using crop insurance 
is that when weather events damage crops in several successive years, 
insurance protection begins to fail exactly when farmers need it the 
most. Disaster declaration years currently count against producers' 
production history, meaning they collect lower insurance payments the 
more they are hit by natural disasters. It does happen that some 
combination of flooding, hail, frost and severe wind damage can affect 
Northeast crops more than once in a 5 year period. These farmers 
shouldn't be penalized because of weather conditions beyond their 
control. Crop insurance should work to protect our farmers from these 
kind of losses instead of penalizing them.
    In fact, our farmers believe the need for crop insurance payouts in 
some areas of the state could be significantly mitigated by urging the 
Army Corp of Engineers to dredge and shape waterways so that 
widespread--and in some cases, repeated--flooding resulting from 
sediment deposits does not destroy farms and communities. If Army Corp 
worked more closely with our communities, we believe everyone would 
benefit.
    Farm savings accounts is a concept that has been around for many 
years and should be considered in the next farm bill as a useful risk 
management tool that farmers pay for themselves. Used as part of a 
comprehensive business strategy, FSAs could be a valuable tool for all 
farmers to use their own funds to better weather poor production years, 
poor commodity prices and years of ballooning input costs.
Disaster Assistance Programs
    Permanent disaster assistance was approved in the last farm bill 
for the first time. This was intended to replace Ad Hoc assistance, 
which was unpredictable and unreliable. NYFB supports permanent 
disaster assistance because it provides farmers with some certainty in 
disaster situations. Cuts in disaster assistance programs potentially 
mean less protection for Northeast farmers if a more useable crop 
insurance program is not developed.
    The Supplemental Revenue Disaster Assistance Program (SURE) was 
created in the last farm bill and intended to be a whole-farm disaster 
assistance program for crop production or quality losses. In theory 
this program is just what Northeast agriculture needs, but SUREs 
program hasn't lived up to expectations and has proven unsuccessful for 
farmers.
    The other permanent disaster programs, such as the Tree Assistance 
Program (TAP), Livestock Indemnity Program (LIP) and Emergency 
Assistance for Livestock, Honey Bees and Farm-raised Fish(ELAP) have 
worked well for farmers, met an important need, and we hope they will 
be preserved.
    Following the disasters last year, many of our farmers became 
familiar with the Emergency Conservation Program (ECP), which has been 
an important recovery tool to help our affected farmers replace 
conservation practices and get their farms ready for the next planting 
season. After experiencing such total disasters, I urge you to maintain 
this program with adequate funding, along with the Emergency Watershed 
Protection Program (EWP), which helps our greater communities, so 
conservation in disaster areas can be quickly addressed.
Conservation
    With growing environmental demands on farmers, we have to be 
careful that the farm bill is written and appropriated in a way that 
ensures farmers have the tools they need to comply with conservation 
mandates. These include the TMDL standards for the Chesapeake Bay 
Watershed that farmers in the Southern Tier of our state are facing and 
proposed changes to the scope of waters regulated by the EPA.
    NYFB supports streamlining and consolidating the many conservation 
programs administered by USDA. This will hopefully lead to savings, as 
well as allowing farmers to better understand the options available. 
However, I caution you on any structural changes to the Environmental 
Quality Incentives Program (EQIP). This has been widely used in New 
York and works very well. Without this valuable program, our farmers 
won't be able to adequately implement the environmental protection work 
they have already begun and meet the time requirements of the TMDL.
    EQIP remains the most essential conservation program for our 
farmers. Unfortunately, even though the 2008 Farm Bill scheduled 
increases in funding for this program, it has faced cuts each year 
since the bill was passed. Despite funding cuts, the need for EQIP has 
only increased. While 364 EQIP contracts were funded to the tune of 
$13.3 million in 2009, more than 1,650 applications and $39 million 
went unfunded. This was the last year for which complete data is 
available. That means for every $1 allocated in EQIP funding, there was 
a need for $2+ to meet the current needs of farmers.
    The formula for allocating EQIP funds to states should be reviewed 
so it more accurately represents the agriculture in each state. For 
instance, in 2010 Wyoming received slightly more in EQIP funding than 
New York, but our agricultural production is four times that state's. 
We also have three times as many farms and 4 + times as much cropland. 
I don't mean to pick on Wyoming and we certainly respect their 
agricultural producers, and while the farms in Wyoming are generally 
larger than ours, this distribution still seems inequitable and should 
be reviewed. The formula used to allocate EQIP funds does not, for 
instance, account for the fact that New York farmers now have to 
implement the Chesapeake Bay TMDL WIP or that the farms in our water-
rich state have to implement practices to prevent run-off and account 
for weather events to a much greater extent than other, drier states in 
the West.
    EQIP works so well in New York because it helps to leverage state 
and local funds for environmental conservation, allowing Federal and 
local officials to really target the most needed projects in the state. 
Funding for EQIP is very important, but farmers still need the 
expertise of ``boots on the ground'' staffing in order to navigate the 
often complicated world of conservation practices. I urge you to 
adequately fund conservation technical assistance (TA) so NRCS can 
continue to deliver farm bill programs in coordination with local 
conservation districts. This relationship is essential to carry out the 
goals of the farm bill conservation programs
    NYFB also hopes the Agriculture Committee focuses its resources on 
the working lands programs of the conservation title, which keep 
productive land in operation and protect the environment at the same 
time. We believe a greater emphasis on these programs, rather than the 
land retirement programs, is the best use of our Federal conservation 
dollars.
    In addition to EQIP, the Farm and Ranchland Protection Program has 
proven an important and useful tool in New York, where development 
pressure on farmland can be intense. Again, this program has leveraged 
state, local and private funds to protect vast acres of farmland in our 
state.
Horticulture & Specialty Crops
    With the addition in the 2008 Farm Bill of a specialty crops title, 
we must be sure not to lose ground on recognizing specialty crops in 
the next farm bill and addressing their specific needs. Specialty crops 
make up a large portion of New York agriculture and research and 
education programs are essential to ensuring that this sector can 
compete in the global marketplace.
    The Specialty Crop Block Grants have assisted in disease research 
for specific crops like onions and apples, and even helped our maple 
producers develop tools to expand their marketing capabilities. State-
wide projects led by our Department of Agriculture and Markets let to 
education for farmer market operators and a state database for buyers 
and sellers of produce.
    Specialty crops often have different needs than other types of 
agriculture and these grants speak directly to the viability of our 
diverse array of specialty crop farms here in the Northeast. Specialty 
crop-targeted research helps with disease and pests, as well meeting 
changing market and consumer needs.
    While included under the Trade title, the Market Access Program 
(MAP) has proven important to several segments of New York's specialty 
crop industry, notably apples, grapes and wine. The assistance provided 
by this program helps our farmers diversify markets and develop new 
customers. As trade agreements become increasingly complicated, 
including the sanitary and phytosanitary provisions, the Technical 
Assistance for Specialty Crops program will become more and more 
essential to helping farmers comply and eliminate any sanitary or food 
safety barriers for agricultural exports.
Forestry and Energy
    Forestry and energy programs are also used in New York and often 
intersect. These industries continue to rely on research and 
development programs. As invasive species become a larger threat to 
trees and biomass in the state, allowing existing programs to address 
these concerns would be an important change to the farm bill.
    We are supportive of several programs that help maintain healthy, 
vibrant, productive forests in our state. Many of our farmers maintain 
forestland, in addition to the state having an important wood products 
industry. The farm bill programs most important for New York foresters 
are forest health and condition, conservation and energy programs.
    New York forests are currently threatened by several invasive 
species. Forest health management provides crucial prevention, 
detection, and suppression of native and non-native insects, disease, 
and invasive plant outbreaks that are impacting our forest landscapes 
and the communities that depend on them.
    We recommend that funding for forest health management provide the 
states flexibility in how to utilize these funds to adapt to the 
rapidly changing conditions these pests present. We need states and 
private industry to work together to find science-based pragmatic 
approaches to deal with these problems. Federal and state agencies must 
work with private landowners through both technical and financial 
assistance to accomplish these goals. The support for research and 
development of new approaches is crucial to this effort.
    The Community Forestry and Open Space Program, authorized in the 
last farm bill, is just being finalized. While this program has great 
intentions of assisting local governments in protecting forests for 
community benefits, our foresters do have a concern that this effort 
could lead to acquisitions that do not utilize sustainable management 
systems and instead the land becomes no more than a park set aside for 
recreational users. The benefits of this program should also include 
sustainably managed forests that allow our communities and wood 
industries to thrive together. We encourage you to limit this program 
to projects that include sustainable forest management and have local 
community support and input.
    New York foresters value both technical and financial assistance 
through forest conservation programs such as the Forest Stewardship 
Program. This helps private landowners develop comprehensive management 
plans for a variety of goals, including environmental stewardship and 
sustainable harvesting. Managing small tract of forests within a larger 
landscape is not often seen as a valuable investment of public funding, 
but issues such as controlling as invasive species can have devastating 
consequences without coordinated management plans.
    In order to expand potential biomass energy production in New York, 
a change to the Federal definition of biomass must be made. The present 
definition excludes fallow or underutilized lands put back into 
production for biomass feedstock production and only allows currently 
farmed land. New York has about 2 million acres of fallow land that is 
perfect for biomass production.
    The Biomass Crop Assistance Program (BCAP) has had mixed result in 
this region. Companies and local communities embraced the start-up of 
biomass energy facilities as a way to transition to a more diverse 
energy portfolio. This is an important goal and we encourage the 
committee to continue to shape this program into one that accomplishes 
those outcomes without the consequences of subsidizing existing biomass 
markets at the expense of existing industries.
    We encourage the biomass program to focus on efforts such as 
technical and financial assistance to convert our schools, businesses, 
government facilities, and homes to the advanced biomass systems that 
are available today--some being built right here in New York--that 
improve air quality and meet emissions requirements. We want the future 
of energy programs in the farm bill to embrace the unique way our 
country benefits from woody biomass energy development.
Research and Extension
    Programs that support applied research and extension education are 
included in a number of titles of the farm bill. Research and the 
technical assistance and education offered by Extension are both 
invaluable on the farm and as communities develop stronger food 
systems.
    In addition, Integrated Pest Management, which involves both 
continued research and education to farmers, helps everyone use less 
inputs to save money and protect the environment while producing the 
same high-quality product. IPM has been targeted for cost-cutting, but 
provides many layers of benefits to producers and their extended 
communities throughout the state.
Nutrition
    Nutrition programs and farming often work hand in hand and when 
facing difficult farm bill negotiations, it is important for our 
policymakers to keep this in mind. Farm and nutrition programs are each 
important in achieving our overall goals of a healthy population and a 
healthy economy and we must craft a farm bill that recognizes and takes 
advantage of the way these programs are interdependent.
    The 2008 Farm Bill included a number of provisions to increase the 
amount of fresh fruits, vegetables and low-fat dairy products that are 
part of the school meal program and USDA nutrition programs. Even with 
a shrinking farm bill budget, these provisions need to be preserved so 
the health of our communities and the health of our farms are 
integrated and strengthened.
    A Farm Bill for the 21st Century will continue to find new ways to 
more directly link our local farmers with the members of our community 
who need the fresh, healthy nutritious food they produce.
    One such program is the Fresh Fruit and Vegetable Program, which 
provides free fresh fruits and vegetables to low-income children in 
schools. The last farm bill significantly expanded this program and 
when products for this program are sourced locally (which is still a 
hurdle for some of our schools and farmers) this program helps link 
farms with the people who really need their food.
    Because this program serves children who are at a high-risk for 
obesity and may have limited access to nutrient-dense fresh fruits and 
vegetables, it really serves the need of our rural and urban 
communities at the same time and is an important program to preserve. 
Because there is no baseline funding for this program going forward, it 
will be discontinued unless funds are found.
    The Senior Farmers Market Nutrition Program is another that pairs 
farmers and eligible consumers well by providing coupons to eligible 
low-income seniors to be used at farmers' markets, roadside stands, and 
other community supported agriculture programs. Like the Fresh Fruit 
and Vegetable Program, this program targets a population that often has 
limited access to fresh produce and helps to improve their nutrition 
and health. This is another great way to link our farmers and the very 
real needs of our communities.
    While not specifically targeting low-income families, several 
programs in the Horticulture Title help to expand distribution and 
access to fresh, healthy foods, which in turn helps those who do not 
qualify for nutrition programs but do face nutrition challenges. These 
programs help ensure that local foods get to local people.
    The Farmers Market Promotion Program provides grants to promote and 
improve farmers' markets, roadside stands, and other direct producer-
to-consumer marketing opportunities. This program helped expand EBT to 
farmers markets and we need to continue to expand this capability. 
Because there is no baseline funding for this program going forward, it 
will be discontinued unless funds are found.
    Food-Based Entrepreneurship programs are important to encourage 
entrepreneurship and help link our agricultural and urban consumers in 
a mutually beneficial relationship while creating jobs and new 
opportunities. These beneficial programs include the Rural Development 
Business and Industry Loan Program, Healthy Urban Food Enterprises 
Development Centers and funding/loans for urban local food enterprises.
    Business and Industry Loan Program provides loans to individuals, 
cooperatives, businesses, and other entities to establish and 
facilitate enterprises that process, distribute, aggregate, store, and 
market locally or regionally produced agricultural food products. This 
program helps target some of the barriers our food system in New York 
faces. This is a general loan program, but when funds are dedicated 
specifically to food-related projects, it has the potential to overcome 
some of problems of duality we face in New York, a food-rich state with 
too many food deserts.
    Thank you for considering these matters important to New York Farm 
Bureau members. Our organization and farmers stand ready to help you in 
any way possible development of the farm bill advances. Please feel 
free to contact our office at any time if we can provide further 
information.
                                 ______
                                 
                       Comment of Anja Nothdurft
    Date Submitted: Friday, May 11, 2012, 11:37 a.m.
    City, State: Greenville, NC
    Occupation: College Student
    Comment: Our country desperately needs to have our food produced in 
a more sustainable manner--economically, socially and environmentally. 
This cannot be done with the conventional, industrial farms that are 
currently being utilized. We need to support local, fresh food that is 
grown without pesticides and in a way that conserves our soil and water 
resources. Please make a Food & Farm Bill that includes protections for 
programs like the Conservation Stewardship Program, the Organic 
Agriculture Research and Extension Initiative, and the Value Added 
Producer Grants Program. We also need to have more young people in the 
farming profession. By supporting the Beginning Farmer and Rancher 
Development Program, you can allow younger generations to regain 
connections with the land and their food.
                                 ______
                                 
                        Comment of Debbie Notkin
    Date Submitted: Friday, May 18, 2012, 8:40 p.m.
    City, State: Oakland, CA
    Occupation: Publishing
    Comment: As a CSA customer, I am--extremely--concerned about the 
way farm policy favors agricultural farmers who would be (it seems) 
perfectly happy to completely destroy our food supply and the people 
who do the work to get our food to us in favor of quick profits.
    I want clean soil, farmers who are supported for growing a variety 
of healthy crops for me to eat, and pressure--against--the primary goal 
in raising food be to make money. Specific actions include:

  <bullet> Fully endorsing all provisions of the Local Foods, Farms and 
        Jobs Act (H.R. 3286).

  <bullet> Funding the Conservation Stewardship Program, and making 
        enrollment in new insurance subsidies tied directly to 
        compliance with this program and related programs.

  <bullet> Implementing all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

  <bullet> Putting effort behind the EQIP Organic Initiative.

    Thank you for protecting and preserving my food, and yours.
                                 ______
                                 
                        Comments of Phillip Notz
    Date Submitted: Friday, May 18, 2012, 11:02 a.m.
    City, State: Fort Collins, CO
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: The farm bill should not subsidize big farms and big 
corporations. It should not subsidize crops like corn, sugar and 
tobacco. To best serve the American People, a farm bill should assist 
small farmers in getting started. There should be limits per farm and 
per corporation on any farm aid.
    Date Submitted: Friday, May 18, 2012 4:26 p.m.
    Comment: The original farm support laws from the Federal government 
were intended to help individual small farmers. Since that time, large 
corporations and mega-farms have hijacked the subsidy system by 
contributions to Congress and cushy jobs to ex-Interior Department 
managers. This weakens our food system by concentrating production in 
the hands of a few wealthy interests. America needs to go back to the 
original aim of government farm support. In any case the amount of 
support to any individual or corporation should be strictly limited. In 
addition, our government needs to support sustainable agriculture of 
healthy food. There should be no subsidies for corn, sugar or tobacco.
                                 ______
                                 
                      Comment of Christine Novell
    Date Submitted: Friday, May 18, 2012, 1:11 p.m.
    City, State: Upland, CA
    Occupation: Cosmetics Sales, Mother
    Comment: I shop at my local farmers market so I can talk to the 
people growing the food I feed my family. Why do I want an avocado from 
Chili when I live in California? I don't--I want to support my local 
farms, as should every citizen. We can make a huge impact on our 
country if we get back to basics and choose to buy local. I want to not 
worry about chemicals in my food.
                                 ______
                                 
                        Comment of Renae Novick
    Date Submitted: Friday, May 18, 2012, 5:36 p.m.
    City, State: Marina, CA
    Occupation: Care Provider/Mother
    Comment: Organic Research benefits of the environment are 
detrimental to maintain and sustain planet health, we need to provide 
conclusive scientific research concurrent to the benefits and effects 
on human health. Removing funding is unacceptable unless GMO's, 
synthetic fertilizers, herbicides, and pesticides are removed from the 
market as well. Thank you for your time and consideration in resolving 
this situation, which stands as this district and overall public 
interests main concern for food and health safety today.
                                 ______
                                 
                        Comment of Helen Nowlin
    Date Submitted: Tuesday, May 15, 2012, 11:52 a.m.
    City, State: Vancouver, WA
    Occupation: Attorney
    Comment: Food is a basic necessity. Please, restore much needed 
funding to assist the most vulnerable people, especially children who 
lack sufficient access to this vital resource.
                                 ______
                                 
                        Comment of Michael Noyce
    Date Submitted: Friday, May 11, 2012, 12:40 p.m.
    City, State: Madison, WI
    Occupation: Musician
    Comment: I want to see a farm bill that shows strong support for 
local, organic, and sustainable farming. We cannot continue polluting 
our water supplies with concentrated feedlot operations and chemical 
fertilizers/insecticides. It's been shown by the Rodale institute that 
organic yields match with conventional over a 30 year period and 
outperform conventional in years of drought. Given this information it 
seems completely irrational to continue doing things the way we have. 
We need change. Sustainable farming needs to happen, and their needs to 
be incentive for it to happen, and we need a new generation of young 
farmers to bring new energy to it.
                                 ______
                                 
                       Comment of Angelica Noyola
    Date Submitted: Friday, March 23, 2012, 3:54 p.m.
    City, State: Austin, TX
    Occupation: Community Builder
    Comment: I work for a nonprofit organization called Southwest Key 
Programs in Austin Texas, we serve over 354 families every second 
Friday and have been doing so for the last 15 months. These are not 
just the unemployed; these are the ``working poor'' living pay check to 
paycheck. They depend on the food they get from us to get by.
    If people living in the Capitol of Texas (Austin) where business is 
booming, are waiting in line for hours to get food for their families 
then the House Committee must act with due diligence to help them. 
There are children who will go hungry tonight without the help of FOOD 
STAMPS and supplemental food provided by Food Banks like CAFB whom we 
partner with.
    I implore you as our Elected Officials to not cut funding to these 
programs. I have seen these families stand in the rain for Hours, in 
the Freezing cold weather to get food vital to their survival. So I can 
see No Reason why this should not be a Top Priority for the people who 
represent this state. Do not allow Hunger to prevail in the political 
game of Chess. These are our children, our residents, and 
responsibility of us ALL. Thank you for your time.
                                 ______
                                 
                        Comment of Olga Nudelman
    Date Submitted: Sunday, May 20, 2012, 10:22 p.m.
    City, State: Seattle, WA
    Occupation: Interior Design
    Comment:

  <bullet> America needs a farm bill that creates jobs and spurs 
        economic growth--support programs like the Value Added Producer 
        Grants Program by guaranteeing $30 million of mandatory funding 
        per year. VAPG provides seed money to help farmers innovate in 
        agriculture and create jobs while securing a sustainable path 
        to market-based farm profitability.

  <bullet> America needs a farm bill that makes healthy food widely 
        available to all Americans--including schoolchildren! We must 
        provide flexibility for states to use existing food procurement 
        programs to purchase fresh, healthy food from local farmers and 
        ranchers

  <bullet> America needs a farm bill that protects our natural 
        resources--protect the Conservation Stewardship Program from 
        unfair funding cuts, and improve it by ranking applications 
        solely on their conservation benefits. Farmers count on CSP and 
        other conservation programs to conserve soil for future 
        generations, keep water and air clean, and create habitat for 
        wildlife--all while farming profitably.

  <bullet> America needs a farm bill that invests in the next 
        generation of farmers and ranchers--guarantee $25 million per 
        year in mandatory funding for the Beginning Farmer and Rancher 
        Development Program. We need a national strategy and commitment 
        to support beginning farmer and ranchers entering agriculture. 
        With an aging farm population, now is the time to invest in the 
        future of American agriculture by nurturing new agriculture 
        start-ups.

  <bullet> America needs a farm bill that drives innovation for 
        tomorrow's farmers and food entrepreneurs--fund the Organic 
        Agriculture Research and Extension Initiative at $30 million 
        per year in mandatory funding. Investment in agricultural 
        research is vital to continued productivity and innovation in 
        growing and diverse sectors of American agriculture, such as 
        organic agriculture.
                                 ______
                                 
                        Comment of Kathryn Null
    Date Submitted: Friday, May 18, 2012, 10:19 p.m.
    City, State: Roanoke, VA
    Occupation: Administrative/Clerical
    Comment: As an American, I did not sign up to eat science 
experiments that have not been proven safe for consumption. Organic 
farming needs to be promoted nit only as a safe and healthy product, 
but also as a way to keep local and small businesses alive. Keep the 
American spirit going!
                                 ______
                                 
                         Comment of Sandy Nunes
    Date Submitted: Friday, May 18, 2012, 11:14 a.m.
    City, State: High Bridge, NJ
    Occupation: Catering Director at a ``Slow Food'' Restaurant
    Comment: Please eliminate genetically altered food that's being 
produced and return to more natural, locally sustainable agriculture as 
quickly as possible. There is money to be made in ways that do not 
adversely affect our environment. It's just as easy to put one's time, 
energy and intelligence to promoting safe practices than into unsafe. 
Thank you!
                                 ______
                                 
                     Comment of Gary Nuschler, Jr.
    Date Submitted: Friday, May 18, 2012, 11:37 a.m.
    City, State: Houston, TX
    Occupation: Vice President--Oil & Gas Company
    Comment: Good morning,

    I am writing this morning to comment on the 2012 Food & Farm Bill. 
For many years my family has been appalled at the spread of industrial 
agriculture in the United States, fueled by subsidized genetically-
modified corn and soybeans. This has unquestionably led to the obesity 
epidemic spreading across the country, as we produce lots of 
nutritionally deficient food, and then later figure out how to deal 
with rising health care costs. As an added bonus, such agricultural 
policies lead to environmental degradation and a dead zone on the Gulf 
Coast that is at times the size of New Jersey.
    However, as a principled conservative, I am not going to ask you to 
increase funding directed at family farmers, nutrition programs, or 
conservation. In fact, in my opinion, the Constitution grants no power 
to the Federal government to spend money on any agricultural programs.
    What I do ask is that Republican committee members, in particular, 
who give pretty campaign speeches saying they want to reduce government 
spending and eliminate burdensome regulations to show the American 
people that they mean what they say--quit subsidizing large 
agricultural enterprises and quit harassing family farmers across the 
country.

  <bullet> Industrial agriculture exported nearly $140 billion last 
        year . please quit subsidizing them with taxpayer money.

  <bullet> Please end the collusion between the USDA, FDA, FBI, IRS and 
        DHS that continuously harass small-scale farmers and retailers 
        all over the country.

  <bullet> No matter how many lobbyists Monsanto and Sygenta send to 
        your offices, checkbooks in hand, please remember your campaign 
        rhetoric promising to stop favoring well-connected businesses 
        and unleash free markets when you consider the 2012 Food & Farm 
        bill.
            Sincerely,

Gary Nuschler, Jr.;
[Redacted];
[Houston, TX.
                                 ______
                                 
                       Comment of Donald O'Brien
    Date Submitted: Saturday, May 19, 2012, 1:16 p.m.
    City, State: Bend, OR
    Occupation: Life Coach
    Comment: We need to raise the nutritional value of our food. 
Genetically modifying and applying tone of chemicals are not the 
answers. Please support sustainable and healthful practices.
                                 ______
                                 
                      Comment of Floretta O'Brien
    Date Submitted: Thursday, May 10, 2012, 5:27 a.m.
    City, State: Bronx, NY
    Occupation: Retired
    Comment: At a period when the U.S. economy faces severe challenges, 
the last thing you should dream of is to cut programs that will provide 
ways for people to avoid hunger. I urge you to continue support for 
those programs, through the farm bill, that maintains these programs.
                                 ______
                                 
                        Comment of Jen O'Connell
    Date Submitted: Friday, May 18, 2012, 1:49 p.m.
    City, State: San Diego, CA
    Occupation: CPA
    Comment: Please stop subsidizing corn production! It contributes 
grossly to our nation's health problems & is counterproductive. Corn-
fed animals promote unhealthy meat consumption & add large amounts of 
methane to the environment (polluting air & groundwater). Foods infused 
with corn products add unnecessary sugar to our diets. Programs to 
promote healthier grains & vegetables would go a long way in reducing 
our out-of-control healthcare expenditures.
                                 ______
                                 
                       Comment of Joseph O'Connor
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: Salem, OR
    Occupation: Retired
    Comment: It is time to start acting as caretakers of the nation's 
health. We, the general public are getting disgusted with the inability 
of our government to do what is best and right for the People. Stop the 
greed of the agribusinesses!
                                 ______
                                 
                       Comment of Colleen O'Brien
    Date Submitted: Friday, May 18, 2012, 1:45 p.m.
    City, State: Eldorado Springs, CO
    Occupation: Registered Nurse
    Comment: Hello,

    As an RN who has worked in Poison Control, I have seen 1st hand the 
effect of Big Agri business on farm workers through exposures to toxic 
chemicals, pesticides and fertilizers, to the effects on young children 
with the contamination of well water. I learned of of the dead zones in 
our oceans, especially in the Gulf of Mexico from farm chemical run off 
and I've learned about the collapse of Bee Colonies and likely causes. 
I directly experienced the frustration of not being able to identify 
specific chemicals on products which had kept ingredients `secret', 
even as an RN requesting information on an exposure of said products 
which were having direct and harmful effects on my patients. I've made 
it my goal to understand farming practices and it's impacts not only 
here, but with U.S. `free trade' agreements around the world.
    We have a very destructive system of farming, both for people and 
the environment.
    We subsidize the worst practices.
    We need drastic change to improve our health and give the Earth a 
chance to heal from overtly over-subsidized practices which destroy 
environments and harm people.
    I call on congress to support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

            Sincerely,

Colleen O'Brien.
                                 ______
                                 
                        Comment of James O'Brien
    Date Submitted: Saturday, May 19, 2012, 2:35 p.m.
    City, State: Chula Vista, CA
    Occupation: Software Developer
    Comment: Previous farm bills have been giveaways for huge agro-
corps. With the organic movement, we have a chance to restore the small 
family farm and safe food. Please support this bill.
    Thank you.
                                 ______
                                 
                       Comment of Maureen O'Brien
    Date Submitted: Sunday, May 20, 2012, 2:04 p.m.
    City, State: Portland, OR
    Occupation: Farmer Apprentice
    Comment: Please include support for small farms and organic 
operations. It is vital to communities all across the country to have 
local food and healthy agriculture. Farms can provide jobs. Local farms 
provide education for young children about the cycle of the food web. 
Healthy, locally produced, community supporting food is so very 
important to the future of our economies and our lives. Thank You.
                                 ______
                                 
                      Comment of Patti O'Callaghan
    Date Submitted: Friday, April 27, 2012, 9:13 a.m.
    City, State: Lafayette, IN
    Occupation: Director of Social Justice
    Comment: Lafayette Urban Ministry is an organization of 40 area 
churches that serves as a social safety net for the poor of Tippecanoe 
County. But it needs to be a partnership that includes the Federal 
government! Please do not cut critical nutrition programs for the least 
among us!

Patti O'Callaghan
                                 ______
                                 
      Submitted Statement by Daniel O'Connell, San Joaquin Valley 
                Representative, American Farmland Trust
April 28, 2012

    Congressman Cardoza, Congressman Costa and Under Secretary 
Schubert,

    Thank you for the opportunity to offer feedback on the 2012 Farm 
Bill. I am the San Joaquin Valley Representative with American Farmland 
Trust, a private, nonprofit conservation organization dedicated to 
saving America's farm and ranch land promoting environmentally sound 
farming practices and supporting a sustainable future for farms.
    American Farmland Trust recognizes the importance of the San 
Joaquin Valley as the nation's most productive agricultural region, 
with six counties among the top ten producers in the United States. Its 
more than 300 crops and livestock products account for almost 60 
percent of the state's $38 billion in annual farm production. Yet, the 
Valley is also one of the fastest growing regions of the state, with 
the current population expected to almost double by 2050. In addition, 
most of the Valley's cities were built on the region's most fertile 
soils and most secure water supplies. Under these circumstances, this 
irreplaceable farmland has been converted to nonagricultural uses at 
the rate of about 10 square miles a year--a trend momentarily slowed by 
recession but unabated by demographic trend. At this rate, the San 
Joaquin Valley--and everyone who depends on its agricultural economy 
and productivity--can expect to lose an additional 600,000 acres of 
farmland by the middle of this century with an impact on the regional 
economy and national food security that is incalculable.
    The farm bill promotes a broad range of public investments 
targeting important concerns. For example, the Farm and Ranchland 
Protection Program funds working lands easements that incentivize the 
conservation of farm and ranch lands. In the San Joaquin Valley, a 
region under extraordinary threats from conversion of farmland, FRPP 
funding has been sparsely allocated and inadequately funded to assist 
its farmers seeking to conserve their farmland and access the financial 
benefits of doing so. Another funding priority of the farm bill has 
been its investments in food assistance, including programs like the 
Supplemental Nutritional Assistance Program (Cal-Fresh in California), 
the Commodity Supplement Food Program, The Emergency Food Assistance 
Program and school lunch programs. In recent years, these nutritional 
programs have been increasingly aligned to enable local producers to 
market their products to the most food insecure communities near their 
farms. With the Valley's high poverty rates, public health concerns and 
highly diverse range of farm operations, such funding has a multitude 
of benefits still to be fully realized.
    Most importantly, the farm bill's conservation funding should be 
maintained as part of a compact that our nation has with its farmers. 
California farmers are among the most regulated in the country, a 
responsibility that they shoulder, but one that the public should share 
because it is the beneficiary of their good stewardship of the 
environment. Programs like the Environmental Quality Incentives Program 
(EQIP) assist farmers in numerous ways such as promoting water 
conservation through more efficient irrigation and better air quality 
by enabling producers to replace older diesel-powered equipment. We 
understand that all Federal programs must be reduced in size, but 
funding for vital conservation programs should not be 
disproportionately targeted for budget cuts. Farmers want to play their 
part, but we need to help them achieve a cleaner environment in a way 
that is economically sustainable.
    At this particular moment in history in the San Joaquin Valley, 
through the farm bill, we have an opportunity to secure the richest 
agricultural region in the world, enable its farmers to meet changing 
expectations and regulations, and address the economic and health 
benefits of its residents. We support the ongoing funding, through the 
farm bill, which invests in these and other outcomes.
    Thank you once again for the opportunity to share our views.
            Sincerely,

Daniel O'Connell,
San Joaquin Valley Representative,
American Farmland Trust.
                                 ______
                                 
                         Comment of B. O'Connor
    Date Submitted: Friday, May 18, 2012, 1:58 p.m.
    City, State: Santa Fe, NM
    Occupation: Office Mgr.
    Comment: Dear Congressman:

    Please this is the time for reform of the Food and Agricultural 
policy in the U.S. I support H.R. 3286, fully funding any conservation 
programs, and H.R. 3236, and maintaining the EQIP Organic Initiative.
    What the big Agri-Business is doing to our Food System is criminal! 
Their actions and philosophy is perverted, over-indulgent, and 
exploitative of Nature! I don't know how these people can live with 
themselves.
    Please fight for us and for this Earth (our nest that we are 
spoiling so badly). Pretty soon it will be inhabitable. These people 
are possessed with $$$ dollar signs, that seems to be all they can see. 
Very sad.
    Thanks for all you do for our State and for the Country.
    I know many, many people that are just so upset and frustrated by 
the un-thinking people in government, that will give you support on 
this issue.
                                 ______
                                 
                      Comment of Lauretta O'Connor
    Date Submitted: Friday, May 18, 2012, 2:00 p.m.
    City, State: Fairfield, CT
    Occupation: Retired Business Mgr.
    Comment: Please let your conscience be your guide by upholding our 
commitment to the most vulnerable of our citizens. Support family farms 
and good, healthy food for all.
                                 ______
                                 
                      Comment of Cornelia O'Leary
    Date Submitted: Friday, May 18, 2012, 3:26 p.m.
    City, State: Yelm, WA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: I urge you to ensure the health of the nations food 
supply, for your family and descendants by ensuring organic and 
sustainable farm practices are protected by law.
                                 ______
                                 
                      Comment of Margaret O'Malley
    Date Submitted: Saturday, May 12, 2012, 12:20 p.m.
    City, State: Chicago, IL
    Occupation: Education
    Comment: I volunteer at a local food pantry and also work in a 
neighborhood elementary school. I recognize the importance that food 
stamps play for the families on the lower end of the socioeconomic 
scale. Even families who receive food stamps and f/r lunches still need 
to come to our food pantry. Cutting SNAP will mean even less food for 
people already in poverty. Please don't cut SNAP.
                                 ______
                                 
                       Comment of Elizabeth O'Nan
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Marion, NC
    Producer/Non-producer: Producer
    Type: Forestry
    Size: 50-150 acres
    Comment: I serve as director for Protect All Children's Environment 
a support organization for people injured and disabled by chemicals, 
most often pesticides. The past lack of regulation and promotion of 
pesticides such as organorchlorines, organophosphates and now 
glyphosates has without doubt caused incalculable harm to generations 
and millions of Americans. These innocent injured and disabled citizens 
now require organic food in order to avoid further injury. Organic food 
that is being discouraged from production through the actions of the 
House Committee of Agriculture. To contribute to the further injury of 
Americans by supporting corporate interests amounts to treason against 
our citizens and should be punished as such. Corporations are not 
people and money is not speech.
    I implore you to do the right thing for America and for those 
injured by current policies and vote for:

  <bullet> full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

  <bullet> Fully fund conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

  <bullet> Implement all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain the EQIP Organic Initiative.

    Reports from Washington, D.C., about the farm bill negotiations 
have not been pretty. According to an editorial in the San Francisco 
Chronicle by Environmental Working Group's Ken Cook and Kari 
Hamerschlag, Republicans in the House Agricultural Committee have 
already ``voted to slash $33 billion from the food stamp program while 
leaving farm subsidies unscathed.''
    The editorial goes on to report on the latest agribusiness 
boondoggle that gladly steals food from the mouths of the hungry to 
create a ``$33 billion new entitlement program that guarantees the 
income of profitable farm businesses. That's on top of $90 billion in 
subsidies for crop and revenue insurance policies.''
    If this weren't bad enough, the Senate Agricultural Committee has 
already voted to cut $4 million from organic research funding and cut 
funding to support Beginning Farmers in half. We cannot let this stand!
    At the same time, the Senate Ag Committee has voted to get rid of 
wasteful subsidy payments. It has proposed to replace it with a new 
subsidized insurance program that leading sustainable agriculture 
advocates are calling rife with opportunities for fraud and abuse.
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    According to the National Sustainable Agriculture Coalition's Ferd 
Hoefner, ``By failing to place limitations on crop insurance subsidies 
and to re-attach soil erosion and wetland conservation requirements to 
crop insurance programs, the Committee has failed to do the full reform 
that is needed.''
    No subsidies should be available for any GMO crops and use of all 
glyphosates (Roundup) and roundup ready crops should be overtly 
discouraged and banned as they are responsible for untold damages to 
American health and environment.
                                 ______
                                 
                        Comment of Julia O'Neal
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: Ocean Springs, MS
    Producer/Non-producer: Producer
    Type: Forestry, Livestock
    Size: 500-999 acres
    Comment: If Thad Cochran wouldn't vote for the current farm bill, 
it's really bad.
    I hate the cuts in CRP programs--they save the native flora and 
fauna. And the emphasis on the big four ``whites'' (corn, wheat, 
soybeans, cotton) and subsidizing agribusiness that grows them, that's 
just stupid. The times they are a'changin.
                                 ______
                                 
                         Comment of Rory O'Neil
    Date Submitted: Friday, May 18, 2012, 6:38 p.m.
    City, State: Carlsbad, NM
    Occupation: Retired Educator
    Comment: When it comes to food, quality is always better than 
quantity. It is time that we support our small (family) farmers. They 
have the knowledge and ability to bring good quality (organic) crops to 
the American public. I would certainly like the opportunity to choose 
between good quality (organic) food from our local farmers and the mass 
produce stuff from the corporate farms.
                                 ______
                                 
                       Comment of Patrice O'Neill
    Date Submitted: Sunday, May 20, 2012, 10:07 a.m.
    City, State: Milwaukee, WI
    Occupation: Teacher
    Comment: I would like to propose a plan that would help solve some 
of our nation's problems. It would restore the health of our country; 
lower health care costs, and solve many of our economic, environmental, 
and ecological problems. It would create jobs and a sustainable life 
style for many Americans. It would reduce unemployment, and could 
reduce the population density of our inner cities. It would provide 
jobs for returning veterans, the unemployed, and it could give new 
direction and opportunity to the formerly incarcerated, and the 
homeless. It would also provide a livelihood and new identity for many 
youth who are searching for a direction and find none in our present 
educational system.
    The too big to fail financial institutions have been bailed out and 
corporate America is having its way with our government, at the expense 
of the American people and small independent businesses. Small scale 
ecological, locally owned and operated organic farms would put our 
agriculture practices back into a balance with nature allowing the land 
to recover and replenish its vital nutrients. This would provide 
healthy food for our nation, a more balance population distribution 
from urban to rural areas; and eliminate excessive pollution from 
factory farming operations.
    This plan would open up a whole new green agriculture program in 
education for those who choose to learn organic ecological farming. 
Currently small organic farms throughout the nation are growing food 
for people in their nearby communities. These farms are also taking on 
interns and training future farmers in ecologically sound organic 
farming methods. As living organisms, we all eat; the outer environment 
becomes our inner environment, the state of our health and strength. 
After World War II recycled chemical weapons were turned into 
fertilizer and marketed to farmers. The new enemy became the bugs, 
fungi and weeds that for centuries farmers coexisted with. This marked 
an end to traditional farming methods in America, and began a new 
direction in agriculture that has eroded the health of our nation. This 
form of agriculture is still going on today. This has to stop; we are 
poisoning our selves.
    The United States Department of Agriculture needs a new vision, or 
someone to create one for them. Too much is at stake to continue 
agribusiness as usual. The Earth cannot continue to support life if we 
have agriculture policies that keep taking and not giving back. Soil 
erosion and the clean-up of contaminated water ways all add to the 
hidden cost of factory farming. Small scale local organic farms that 
supply local consumers are the enlightened choice of the people. This 
phenomenon is going on all over the nation. At some point a critical 
mass will be achieved and this healthy, restorative ``choice of the 
people'' will take over and change will happen. Unless, the government 
blocks this by continuing to choice the structuring of markets, and 
manipulation of ideas to secure profit upward, instead of human needs 
nationally and globally. The government could do so much more.
    Doesn't the government want to get on board, help out, and make a 
difference? Or, is the government too invested in solving our global 
and national problems with perpetual wars, and servitude to 
corporations that stand to gain by this destructive addiction? Why does 
the government need too continue to invested in status quo agribusiness 
that is no longer sustainable? Can't our government create policies 
that are life affirming and support the health of the people? What is 
happening to our democracy? The people's voice is like a voice in the 
wilderness. Government, give life a chance! Aren't you supposed to be 
us, the people, for the people? If the government would facilitate a 
reinstitution of the ``family farm'', it could speed up this process 
and rebuild the people's confidence in a true democracy. As stated 
above this change in U.S agriculture could provide the following.

    1. Jobs for the unemployed, returning vets, formerly incarcerated, 
        and homeless who want to farm

    2. Cleaner and healthier environment

    3. Ecological balance, restoration of top soil

    4. Recovery of human health, lowering health care costs

    5. Recovery of our Economy, creating sustainable lifestyles

    6. Balanced redistribution of population

    7. Energy saving agriculture that is Green

    Government implementations of these agricultural changes are many 
and should be given thought and time to evolve and fit our national and 
global needs. The U.S. government could launch a campaign to awaken 
Americans to the advantages of embracing this new direction for a green 
economy and healthier population. They could grant homesteads to those 
interested in the ``back to the farm movement''. They could buy 
foreclosed farms to be reconditioned as new models for American farming 
in the 21 century. Government could provide educational opportunity and 
grants for the qualified future farmers. Interns could be assigned to 
one of the many certified organic farms that already provide this kind 
of training. The government could facilitate the creation of 
educational programs to be taught in community colleges and high 
schools for those who want to learn these skills. It could do a land 
study to determine which factory farm lands would serve the greater 
good by elimination, reforestation, or division into smaller farms. For 
a new approach, the government could ask the small independent farmers 
what their ideas and needs are. The government could organize our 
economic system so farming is a sustainable living, rather than a 
subsistence living; and make it attractive to future organic farmers, 
farming families, and cooperatives.
    Government promotion of independent small businesses in farming 
would turn the economy around. Currently, government supports 
advantages to only American corporate farming methods. This new 
proposed direction would create a healthier environment; therefore, a 
healthier population who would have the energy and will to make it 
work. With government assistance in the creation of local economies 
through this kind of agriculture, local communities could be sustained 
with lower cost and less energy use by curtailing long distance 
transport of food. America's ``agriculture revolution'' could be a 
model for the world. It would save emerging third world countries form 
the erroneous practice of industrial, chemical, genetic engineered, 
globally oil driven agriculture.
    Imagine this American dream as a workable solution. Imagine it 
without the obvious counter argument of the disruption of big business. 
Oil interests, chemical companies, genetic engendering, and global 
trade agreements would all have to be changed for the greater good. 
Government's alliance and allegiances to the current factory farm is a 
prescription for starvation on planet Earth. Agriculture needs to be 
diverse, local, and small enough to sustain a local population. Every 
nation should feed its own people before thinking of exporting any 
crop. Enough small farms that are far enough apart prevent pollution by 
allowing the land to naturally break down animal waste. Enough land and 
forested areas, nature's carbon sequesters, between farms provide 
natural filtration, and prevent manure from polluting water ways. If 
life is going to continue, life affirming changes in harmony with 
nature will have to happen. With the government's support, this 
fundamental change can happen sooner rather than maybe too late.
                                 ______
                                 
                        Comment of Arthur Oaden
    Date Submitted: Friday, May 18, 2012, 12:25 p.m.
    City, State: Corpus Christi, TX
    Occupation: College Student
    Comment: I would support a gradual reduction in subsidies combined 
with greater protection for family farms and small towns. Agribusiness 
is a blight, but the working farmer is a benefit to this country and 
always has been.
    Agribusiness is a lifestyle of the suburbs and the city, and does 
little to buoy up traditional America. The farmer of the small farm of 
40 acres or less must labor to extract his crops, and often lives in a 
community where he is intimately involved with his neighbors and his 
environment. Additionally, he serves as a bastion of freedom because of 
his separation from modern industrial society.
    These farmers are small in number, but they should be the focus of 
government agricultural policy. They do not need subsidies, but require 
protection from government interference and the industrial economy's 
attempts to force them from their livelihoods.
                                 ______
                                 
                         Comment of John Oakes
    Date Submitted: Friday, April 27, 2012, 9:55 a.m.
    City, State: Scott Township, PA
    Occupation: Luthier
    Comment: Many volunteers now supplement the work that our taxes 
were supposed to supply for the public good. Cutting food programs 
essentially delivers a death sentence to those whose jobs have been 
sent overseas as well as those who do your jobs for you.
                                 ______
                                 
                        Comment of Vinnie Oakes
    Date Submitted: Monday, May 07, 2012, 6:49 p.m.
    City, State: Reno, NV
    Occupation: Buyer
    Comment: Please consider that the farm bill should increase support 
for helping food insecure families in our country. The key to our 
future is supporting the education of children. But children need to 
eat before they are able to succeed in school. A brain needs 
nourishment. Please help those who cannot help themselves.
                                 ______
                                 
                       Comment of Rebecca Oberlin
    Date Submitted: Friday, May 18, 2012, 5:36 p.m.
    City, State: Okmulgee, OK
    Occupation: Administrative in Mental Health Field
    Comment: These are important programs that should be continued for 
the benefit of those who are in real need. If we can afford to send 
Billions of dollars to Afghanistan, Iraq and other countries; we should 
be able to make some effort for our own citizens who are in need of our 
help.
                                 ______
                                 
                         Comment of Grace Oedel
    Date Submitted: Saturday, May 19, 2012, 11:21 a.m.
    City, State: Nevada City, CA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: We need a farm bill that will actually support thriving 
now and in the future. Heavily subsidizing huge, monocrop farms of corn 
and soybeans has made our people unhealthy, obliterated our once-
glorious topsoil, increased our dependence on fossil fuels, and 
devastated entire ecosystems. We need to help support small farmers who 
can help remedy all these problems. We need to build new systems, 
resilient, local food supplies, that makes healthy food affordable. We 
need to question whether we truly believe pumping money on huge, 
monocrop farms (which, as monocrops, are completely susceptible to 
disease and crop failure, and by design depend on inputs of fuel-made 
pesticides and fertilizers) will serve our country best in the long 
term. Wendell Berry and Wes Jackson at The Land Institute wrote a 
phenomenal Fifty Year Farm Bill that I would urge you to read. As they 
write:

          ``Long-term food security is our issue. We begin with the 
        knowledge that essentially all of nature's ecosystems feature 
        perennial plants growing in species mixtures and that they 
        build soil. Agriculture reversed that process nearly everywhere 
        by substituting annual monocultures. As a result, ecosystem 
        services--including soil fertility--have been degraded. Most 
        land available for new production is of marginal quality that 
        declines quickly. The resulting biodiversity loss gets deserved 
        attention, soil erosion less. [ . . . ] Because the change 
        needed is systemic, we believe that USDA should take the 
        lead.''

    A new way is possible--local groups are already trying to change 
the agriculture system from the grassroots level. But we need USDA 
support to make meaningful systemic change.
                                 ______
                                 
                       Comment of Jenny Oehldrich
    Date Submitted: Sunday, May 20, 2012, 6:53 p.m.
    City, State: Waukesha, WI
    Occupation: Teacher
    Comment: I support small local and organic farmers. They should 
have the right to grow what they choose and use or not use herbicides 
or pesticides if they choose.
                                 ______
                                 
                        Comment of Clark Oehler
    Date Submitted: Monday, April 30, 2012, 11:56 a.m.
    City, State: Thomasville, NC
    Occupation: Student/Researcher
    Comment: I'd wish to stand in support of the ethanolrfa.org, 
Advanced Ethanol Council in thanking the Senate for the restore of 
about $800 million to/in funding several renewable-energy programs in 
The farm bill. I support the needed efforts of the American Coalition 
for Ethanol [Redacted]. I would be in favor to decrease corn & soybean, 
soybean oil exports & to use more of that for U.S. domestic biofuels 
productions. I believe we should cut the 2011/12 U.S. soybean exports 
by 475 million bushels--use that for U.S. produced bio-fuels and/or 
ethanol production. We need more than the (present) 29 states with 
ethanol facilities. I would suggest earmarking a deduction of 1 billion 
bushels of U.S. grown corn, subtract that out of the 2012 14.3 billion 
(expected) bushels of U.S. grown corn so as to yield an additional 2.8 
billion more gallons of ethanol (on top of)the already established 2012 
figure that 14 billion gallons will be produced. So we actually will 
achieve 16.8 billion gallons. Please fully fund & strengthen the 
Ethanol Infrastructure Grants & Loan Guarantees-USDA [Redacted]. I do 
feel that for (increased) Ethanol production, more independent 
producers are needed with (included) the best working technologies & 
Value-Added Producer Grants (VAPG) increased funding. [My Input] I 
believe that due to the real need of seeing or reaching fruition; 
higher usages of E15 to E85, producers should be able to apply for both 
planning & working capital grants--at ``increased'' funding 
availabilities. This section of my commentary I hope can be faxed to 
the Appropriations Committee. A point of reference document that I am 
very fond of & desire to show support thereof is the afdc.energy.gov/
afdc/laws/laws/U.S./tech/3252 text. Please try to work to surpass the 
present 140 million gallons capacity under construction of Ethanol. I 
firmly believe we do need more U.S. produced & marketed biodiesel and 
ethanol. The USDA statistics that I have discovered indicate for 2011/
12, soybean projections at 15 million bushels imported, U.S. production 
at 3,056 million bushels and a supply/total of 3,286 million bushels. 
With these large quantities, I want to advocate for much higher/
increased U.S. bio-diesel production. Would the honorable committee 
please be so kind to fax a copy of my remarks to my honorable 
representative Mr. Coble's office. Thank you.
            Sincerely,

Clark Oehler.
                                 ______
                                 
                        Comment of Alison Ogden
    Date Submitted: Friday, May 18, 2012, 5:12 p.m.
    City, State: New York, NY
    Occupation: Health Coach
    Comment: Dear Members of the Agriculture Committee,

    What you hold in your hands in the farm bill is the health of the 
citizens of this nation. What we eat determines how our bodies 
function, and right now, the majority of the foods subsidized under the 
authority of the farm bill are commodity crops that are making us as a 
country sick and weak. You are holding the authority to determine what 
kind of country we want to be--one that supports and upholds the health 
of its constituents so that we can become again the robust, innovative 
people that Americans were in the past, or one that supports the 
profits of mega corporations. I am writing to ask that you support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative

    I believe this is the single most important piece of legislation 
happening this year, and I implore you to do the right thing. Thank 
you.
            Sincerely,

Alison Ogden.
                                 ______
                                 
                       Comment of Merle Ohlinger
    Date Submitted: Friday, May 18, 2012, 5:14 p.m.
    City, State: New Rochelle, NY
    Occupation: Professional Health Care
    Comment: It is absolutely necessary to make organic & small family 
farmers a priority in our production of healthy food for all American 
citizens. Right now the priority is large agribusiness which by 
necessity uses antibiotics excessively to maintain animal health in 
filthy environments & promote animal growth as quickly as possible for 
profit. This is irresponsible & must end. Please pass a Healthy farm 
bill. Thank you.
                                 ______
                                 
                         Comment of Alex Ojeda
    Date Submitted: Friday, May 18, 2012, 2:30 p.m.
    City, State: Jacksonville, FL
    Occupation: Web Developer/Graphic Designer
    Comment: Please help us to remove the fine that organic producers 
have to pay to do the right thing and put a HEAVY FINE on the factory 
farm and commercial food production industry for all of their 
pollution, poison and land damage. We need to get the subsidies 
redirected from those damaging our lives and put them toward those 
doing the right thing. Thank you.
                                 ______
                                 
                         Comment of Lewis Okun
    Date Submitted: Friday, May 18, 2012, 12:12 p.m.
    City, State: Ann Arbor, MI
    Occupation: Psychologist
    Comment: I oppose any and all cuts to the SNAP program. The failed 
government economic policies of this entire millennium (2001 to date) 
should be paid for by those who have most benefited from those policies 
and not those who need food assistance.
    Further, I oppose subsidies to large agribusinesses. We need more 
small farms and family farms; they should receive any subsidies, not 
the mega-farms. Also, no subsidies at all is a preferable option to 
little taxpayers like me continuing to support very large food 
producing enterprises.
    Along these lines, I also want to see strong support for small and 
organic farms. I support: the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286); fully funding conservation 
programs, such as the Conservation Stewardship Program, and making sure 
that enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs; the implementation of all 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236); and maintaining the EQIP Organic Initiative.
    Thank you for your consideration. Please conduct yourselves as 
representatives of government of, by, and for the people. Please do not 
act like government of the money, for the money, and by the money.
                                 ______
                                 
                        Comment of Lance Olenik
    Date Submitted: Friday, May 18, 2012, 4:34 p.m.
    City, State: Caldwell, ID
    Occupation: Webmaster
    Comment: Please think of the people's health before your checking 
account. We didn't vote for you so you could get rich, we voted for you 
to be our voice. The more organic our food gets, the healthier and more 
vibrant Americans will be. Vote for a strong America!
                                 ______
                                 
                         Comment of Emery Olexa
    Date Submitted: Friday, May 18, 2012, 2:43 p.m.
    City, State: Alexandria, VA
    Occupation: GIS Editor
    Comment: Please try to keep things simple for the independent farm 
people. Don't let Big Agriculture make their life more difficult than 
it already is. Please label GMO's as such. Thanks.
                                 ______
                                 
                         Comment of Diane Olive
    Date Submitted: Friday, May 18, 2012, 2:31 p.m.
    City, State: Encinitas, CA
    Occupation: Business Owner
    Comment: I heard that the White House cafeteria serves only organic 
food. So why would they let us eat the other food and they only eat 
organic this does not make any sense. Especially they are suppose to be 
humble servants of the people.
    The first Lady Mrs. Obama putting in a organic garden and saying 
she feels better eating organic. I am so happy that Mrs. Obama put a 
organic garden but Ms. Obama wouldn't you want to create a change by 
making sure we all have organic foods and the government make sure the 
soil has nutrients in it before we are fed the foods? We must take care 
of the people and especially the poorest of the poor and make sure 
their food is not poisoned (GMO, pesticides) and lacking nutrients. In 
the practice of oneness we want what we want for ourselves for others. 
The practice of oneness creates abundance of good food and monies for 
everyone.
                                 ______
                                 
                        Comment of Lauren Oliver
    Date Submitted: Friday, May 18, 2012, 2:37 p.m.
    City, State: Austin, TX
    Occupation: Registered Dietitian
    Comment: With respect to the 2012 Farm Bill, I support all of the 
following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    We need any and all changes that will encourage increased 
production of a variety of fresh fruits and vegetables. We need any and 
all changes that will link people to these local/regional farm products 
(make them more accessible and affordable). We need any and all changes 
that will continue to support the most needy/vulnerable citizens to 
make not just any processed food-like product, but Real, healthy food, 
a daily part of their diet. Our national health, security, and success 
depends upon the health and well-being of its individual citizens.
    Thank you and please do not hesitate to contact me with any 
questions.
                                 ______
                                 
                        Comment of Leesa Oliver
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: Richmond, TX
    Occupation: Social Worker
    Comment: It is unsettling to think that the agricultural industry's 
profits could take precedence over food nutrition and value. The health 
and well-being of the consumer as well as environmentally sustainable 
food production should be placed at the forefront of any policies 
affecting the food we eat. I ask that you please support the Organic 
Farm Bill and allow our food production to become more sustainable for 
our environment and healthier for our bodies.
                                 ______
                                 
                        Comment of Paula Olivier
    Date Submitted: Tuesday, May 08, 2012, 8:49 p.m.
    City, State: Houma, LA
    Occupation: Retired Senior Citizen
    Comment:

    (1.) (Agree) Crop insurance is a vital part of the farm safety net 
        and has become an integral part of business life for a large 
        majority of American farmers and ranchers. Many lenders now 
        require crop insurance coverage in order to make operating 
        loans to crop and livestock producers, and many producers use 
        crop insurance as collateral for the loans.

    (2.) (Agree) a farm bill that meets the goals of food safety and 
        security, rural prosperity, and nutritional well-being.

    (3.) (Agree) next farm bill is reducing overall spending while 
        maintaining an effective level of support for critical 
        programs.

    (4.) (Agree) continue to monitor progress made to ensure minority 
        farmers receive sufficient and unbiased access to credit.

    (5.) (Agree) need assistance program Supplemental Nutrition 
        Assurance Program (SNAP), formerly known as food stamps,

      (a.) with caution I am not happy with the easy availability of 
            this program: more needs to be evaluated for abuse.

    (6.) (Agree) provides assistance to eligible producers suffering 
        crop losses during natural disasters.

    (7.) (Disagree) to make most efficient and effective use of the 
        funds available for studies.

      (a.) Resources should be available for land preservation and 
            proper care of all soils for better cultivation . . . 
            invest in quality not studies . . .

    (8.) (Agree) for producers have a dairy policy to build a strong 
        base so dairies can continue to produce milk.

      (a.) keep our Milk product without harmful ingredient or 
            additives--keep it natural

    (9.) (Agree) limited Federal dollars--eliminated waste--be 
        conservative but sufficient--it can be done--I run my household 
        that way--it can be done.
                                 ______
                                 
                          Comment of Amy Olles
    Date Submitted: Friday, May 18, 2012, 5:30 p.m.
    City, State: Leonardtown, MD
    Occupation: Aeronautical Engineer
    Comment: I would like to see the farm bill address the issue of 
longevity--and by that I mean a bill that supports organic farming, 
small family farms, grass-fed or pastured meat, etc.
    I understand that the current farm bill promotes and heavily 
subsidizes a system that grows genetically engineered commodity crops 
and uses lots of petroleum based fertilizers and toxic chemicals to 
keep those crops growing. I further know that the current system 
depends on CAFOs and extremely crowded ``grow-em-fast-and-kill-em'' 
farms for poultry and pork. This system does produce lots of food, but 
it is of inferior quality and can actually be dangerous to public 
health and the environment (as in top soil erosion, soil depletion, 
water contamination, etc.). Further this system is probably lucrative 
to you, the government official, as big ag and the meat industry lobby, 
pay and bribe the government officials well to keep the system in 
place.
    This year I'd like you to step up to the plate and make changes 
that, in the long term, will bring some integrity back to the food 
system of America.
    I want to see organically grown food subsidized, not genetically 
engineered crops.
    I want to see the inheritance tax on small family farms waived, so 
that the vocation of farming can be passed down from generation to 
generation without a terrible financial strain on the family.
    I want to see a marked decrease in or elimination of the 
subsidizing of genetic and/or commodity crops.
    I want to see more subsidizing go to farmers who use less or no 
chemical fertilizers or toxic chemicals for pest control.
    I want Monsanto to stop calling the shots as to what gets patented, 
grown and sold to and for the people of the USA. It's time for the USDA 
to put the bridle on them. (The EU has done this to some success, you 
can use them as an example of where to start)
    I want to see CAFOs turned into pastures (analogously, I understand 
that's probably not physically possible) and other concentrated animal 
growing facilities go unfunded and unaided by Federal dollars--directly 
or indirectly through cheap subsidized feed. I want the USDA to pass 
tougher standards on testing the meat that comes out of those CAFOs in 
the meantime.
    I understand this is a radical departure from `the norm', and that 
these changes will drive food prices up. Let me tell you though that I 
currently Do pay more than market price for my food, as I only buy from 
local farms or organic items. The stuff produced by the farm bill is 
not healthy food to ingest in my opinion (Please see obesity, diabetes 
and other disease historical rise in the past few decades and plot it 
against the rise of processed food and subsidized commodities). Further 
I believe that though these changes will cause price changes, the 
market will adjust and people will not starve in the end. I encourage 
you to make this the year that the farm bill actually supports a more 
sanity based system that grows quality, healthy food in such a way that 
doesn't destroy the soil and water ways of this or other nations.
            Thank you for reading my comments,

Amy Olles.
                                 ______
                                 
                          Comment of K. Olsen
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Ithaca, NY
    Occupation: Retired
    Comment: Agra Business is Not in our best interest! We want good 
organic choices, not GMO, and processed garbage! Please, work toward a 
farm bill that supports the health of your constituents, not the bank 
accounts, and campaign donations of Big Ag!
                                 ______
                                 
                         Comment of Karen Olsen
    Date Submitted: Saturday, May 19, 2012, 12:02 a.m.
    City, State: Myrtle Pt., OR
    Occupation: Postmaster Retired
    Comment: I encourage you to shift more funds to support smaller 
farms, sustainable and organic practices, wise use of water resources, 
and local marketing which facilitates the availability of more 
varieties (even those that do not travel well) and fresher products.
                                 ______
                                 
                         Comment of Lisa Olsen
    Date Submitted: Saturday, May 19, 2012, 8:41 a.m.
    City, State: Centennial, CO
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I am an apprentice with an Neighborhood Supported 
Agriculture program in urban Denver.
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.

    Additionally, I as a consumer, I would like to see an end to GMO's, 
and short of that, I would like to see accurate labeling enforced.
    Regarding farm subsidies, the government must stop subsidizing the 
crops and industries that are contributing to the national health 
crisis. Hidden calories (corn/soy) will contribute to the death of many 
Americans in the coming years and we need to break that cycle.
                                 ______
                                 
                         Comment of Diane Olson
    Date Submitted: Friday, April 27, 2012, 1:40 p.m.
    City, State: Santa Monica, CA
    Occupation: Retired Librarian
    Comment: I don't want it to contain the money that has been given 
away to huge factory farms. As far as I can see they are doing all 
right. I'm tired of seeing them treated as if they are Family Farms 
when for all practical purposes they are not.
    I see that today Obama has caved because of the meaningless Family 
Farms argument and will not pursue restrictions on the age that 
children will be allowed to perform certain tasks. There was an accept 
ion allowed in the bill so there was no reason not to pursue it. I 
would like to see those restrictions continue in the bill.
                                 ______
                                 
                        Comment of Judith Olson
    Date Submitted: Friday, May 18, 2012, 8:59 p.m.
    City, State: Vashon, WA
    Occupation: Retired
    Comment: Intensive mono-crop agricultural processes that rely 
heavily on synthetic fertilizers and pesticides are creating myriad 
problems--big problems. Traces of pesticides are showing up in human 
breast milk. Our infants are being fed poison. The bees are dying off. 
Without bees to pollinate crops, we will have very little food. Our 
once rich farm land is being turned into nothing more than dust. The 
use of ``Round-Up Ready'' seed--GMO seed--is threatening the diverse 
seed bank that is necessary to withstand changes in weather patterns 
and climate. This is just plain Stupid! Our nation must make some smart 
decisions Now to change the way we are growing our food supply--if we 
want to continue to Have a food supply.

Judith Olson.
                                 ______
                                 
                          Comment of K. Olson
    Date Submitted: Friday, May 18, 2012, 3:47 p.m.
    City, State: Bodega Bay, CA
    Occupation: Mother/Grandmother, Manager for Nonprofit
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and ensuring that enrollment 
        in any new insurance subsidies are tied directly to compliance 
        with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Please listen to scientists without financial gain/motive 
(ucsusa.org) and support organic, sustainable farming. It is crucial 
that my children and grandchildren have access to affordable healthy 
food. Government funding for corporate farms using pesticides and 
genetically modified crops (esp. those being banned in other countries) 
really ticks me off! I do not wish my tax dollars supporting this 
travesty!
    I'm not a scientist but as a gardener I see a bleak future if we 
support pesticides & GMO's . . . yet if we choose to support organic 
sustainable farming I see a clean healthy future. It's time is overdue!
                                 ______
                                 
                        Comment of Kerwin Olson
    Date Submitted: Monday, May 14, 2012, 2:24 p.m.
    City, State: Indianapolis, IN
    Occupation: Consumer Advocate
    Comment: I urge Congress to protect against hunger and promote 
nutrition in the upcoming farm bill by supporting programs like SNAP, 
TEFAP, CSFP, and FFVP.
                                 ______
                                 
                         Comment of Lori Olson
    Date Submitted: Friday, May 18, 2012, 11:27 a.m.
    City, State: Austin, TX
    Occupation: Executive Director, Texas Land Trust Council
    Comment: On behalf of the Texas land trust community, we would like 
to make the following comments for the 2012 Farm Bill.
    We hope that the House will support the Senate funding levels for 
Agricultural Land Easements, which advance the proven model of 
leveraging Federal funds through local partners to secure perpetual 
conservation easements that help keep farm and ranch lands in 
production, while conserving important natural resources.
    We would like to see the existing FRPP match formula restored to 
encourage bargain sales and allow waivers of the match requirements for 
strategic projects.
    We also hope that the House will consider restoring language 
clarifying that the Federal government is not acquiring a real property 
interest and has only a ``contingent right of enforcement,'' should the 
cooperating entity fail to enforce its easement.
    Thank you for your consideration.
                                 ______
                                 
                          Comment of Pam Olson
    Date Submitted: Friday, May 18, 2012, 12:35 p.m.
    City, State: Bruce Twp., MI
    Occupation: Customer Service with a Liquor Company
    Comment: Please do not cut funding to vital programs such as 
nutrition, conservation and support for organic and sustainable 
agriculture. It is the future of our food supply. Which is the future 
of the human race. Instead cut funding totally for Farm Subsidies that 
pay farmers not to grow a certain crop. This program is a racquet. You 
also have what is called the direct payment program. Those goes to 
farmers of certain crops regardless of what crop prices are. And then 
you also have conservation payments, which pay farmers to farm their 
land or not farm their land for environmental purposes. And you also 
have crop insurance programs in which basically, the government 
subsidizes crop insurers that then farmers can buy policies and manage 
against weather risk. This could be cut, too.
    And programs like subsidizing certain crops like corn, ethanol. 
They should not be subsidized?
                                 ______
                                 
                      Comment of Carole Onderdonk
    Date Submitted: Friday, May 18, 2012, 11:27 a.m.
    City, State: Gypsum, CO
    Occupation: Gardener/Clinical Social Worker
    Comment: You must address the destruction caused by GMO crops 
including super bugs and super weeds. No more subsidies for big ag--
support small or large organic farmers and ranchers.
                                 ______
                                 
                      Comment of Elizabeth Ordonez
    Date Submitted: Friday, May 18, 2012, 3:44 p.m.
    City, State: Golden, CO
    Occupation: Retired Professor
    Comment: Please support small family farms, especially organic and 
sustainable farming. End subsidies on commodities that are overused in 
food production, such as corn, resulting in foods that are contributing 
to our nation's obesity epidemic.
                                 ______
                                 
                        Comment of Penny Ordway
    Date Submitted: Friday, May 18, 2012, 3:32 p.m.
    City, State: Ardmore, PA
    Occupation: Massage and Skin Therapist
    Comment: I want non-GMO, non-polluting, non-toxic food in my 
cupboard. I want healthy farm workers. I want agribusiness to stop 
getting subsidies. I want small farmers to thrive. I want food to be 
fair and just. Please do your best to make food fair and just and safe 
to consume.
                                 ______
                                 
               Comment of Christa Orecchio, C.N., H.H.C.
    Date Submitted: Friday, May 18, 2012, 1:21 p.m.
    City, State: Encinitas, CA
    Occupation: Clinical Nutritionist
    Comment:The U.S. food and agricultural policy must focus on 
adopting best agricultural practices that put the health of its 
citizens, the land and the livelihood of farmers and farm workers over 
the interests of industrial agriculture lobbyists. Decentralizing 
farming is one of the only ways toward solving the public health crisis 
in this country. Our food can be medicine or it can be poison. Mental 
illness continues to get worse in this country because there are no 
longer minerals in our soil and our water. As a nation, we are 
incredibly nutrient deficient, and masking those symptoms with 
pharmaceuticals is absolute insanity, which degrades quality and 
experience of life. Please see how very important the connection is 
between true health and the quality of our food supply.

Christa Orecchio, C.N., H.H.C.;
thewholejourney.com.
                                 ______
                                 
                       Comment of Nick Orfanakis
    Date Submitted: Saturday, May 19, 2012, 12:29 a.m.
    City, State: Lake Oswego, OR
    Occupation: Physician
    Comment: Support of the corn as a farm product has led to a 
disaster in our national health with obesity and type 2 diabetes. This 
needs to be reversed with support of farming with a balanced production 
of foods that are clean and good for us and produced at fair market 
values. Corn and corn syrup are not the best for us.
                                 ______
                                 
                        Comment of Pamela Oriard
    Date Submitted: Sunday, May 20, 2012, 1:02 p.m.
    City, State: Lafayette, CA
    Occupation: Counselor, Hobby Organic Gardening
    Comment: We must look to organic farming for the health of our 
population; and get away from dangerous chemical and genetically 
modified type processes. I had to change the way I eat to regain my 
health, and I think this is becoming true for more and more people.
                                 ______
                                 
                       Comment of Dana J. Orlich
    Date Submitted: Saturday, May 19, 2012, 8:46 a.m.
    City, State: Omaha, NE
    Occupation: Housekeeper
    Comment: Corporate agriculture's refusal to label foods containing 
GMO and bullying of organic family farmers must stop. America's current 
assembly line GMO approach to food production is not only dangerous, it 
is deadly. It is time to put the health of Americans a primary concern. 
Corporate agriculture profit cannot remain the priority with food 
production in the United States. organic family farms is a rich 
American tradition that needs to be revived. Thank you.

Dana J. Orlich.
                                 ______
                                 
                      Comment of Patricia Orlinski
    Date Submitted: Wednesday, May 09, 2012, 8:28 p.m.
    City, State: Sun City, AZ
    Occupation: Retired Elementary Teacher
    Comment: It is so important not to cut programs from the 
Agriculture funds. These cover nutrition, basic needs for people who 
are working (SNAP) and for the elderly (TEFAP & CSFP). Seniors and 
retired folks like me need these programs for basic needs. You know 
there are places to trim the fat from the military budget. Do that 
instead.
                                 ______
                                 
                        Comment of Mark Orlowsky
    Date Submitted: Friday, May 18, 2012, 1:03 p.m.
    City, State: Chicago, IL
    Occupation: Food Scientist
    Comment: There should be a greater focus on the subsidization of 
organic farming in an aim to keep it competitive with traditional 
farming. Organic farming is forced into a position with high entry 
costs, and then doesn't receive the traditional subsidies that major 
food producers do. This is an unfair market, and is keeping organic 
foods out of the hands of many consumers who cannot afford the price 
hike. In theory organic farming makes use of less pesticides, and 
chemicals that have become common place. The prices of these foods 
should be lower, there is less labor and production input. Subsidies 
should be redistributed, and a focus should be made to make organic 
prices comparable to non-organic production.
    Here typically the argument for increased yields will raise its 
head, but research continues to show that our traditional methods of 
farming (heavy use of pesticides and GMO), do not have any major impact 
on our yields. A study by Doug Shurian exemplifies this finding with 
rigorous and methodical scientific research and analysis (http://
www.ucsusa.org/assets/documents/food--and--agriculture/failure-to-
yield.pdf).* Supporters of our current farming system also like to 
ignore the potential for environmental damage from pumping chemicals 
into our soil and water supplies, and the unresearched impact that 
pollen from these modified organisms are having on our indigenous plant 
populations. Today we already have dead zones in the Gulf of Mexico 
where large concentrations of chemical run off from our farms in the 
Midwest are having unforeseen consequences (http://
www.thedailygreen.com/environmental-news/latest/dead-zone-fertilizers-
47082802).*
---------------------------------------------------------------------------
    *  The information referred to is retained in Committee file.
---------------------------------------------------------------------------
    Another major issue related to the use of GMO farming techniques is 
the burden placed on farmers. They are required to repurchase all of 
their seeds due to legal manipulation and the patenting of specific 
code that has been spliced into these plants. Organic farmers can have 
an entire field repossessed if their neighbors GMO plants happen to 
cross pollinate his own field. This in almost all situations is 
absolutely going to happen. Plants spread their seed through the air, 
and ultimately one or two will land across the street, and suddenly a 
man who is trying to make a living can lose his livelihood due to 
technicalities he had no control over. These are unjust practices that 
are aimed at taking advantage of legal proceedings that most farmers 
are not capable of defending themselves against. It is bullying by 
major corporations like Monsanto and DuPont, and it has all been 
sanctioned by the governmental regulations like this farm bill. Serious 
changes must be made if we are to preserve our farmers livelihood and 
the quality of our food supply.
    These issues outlined above are at the root of what our farming 
bills need to address. It is my understanding that the writers of this 
bill are often eating right out of the pockets of many of the companies 
who push for regulation that grows GMO production and enforces its evil 
policies. This makes me want to draw a rule or law that says a person 
of industry should not have a say in developing the farming plan of 
America. They are too often driven by ulterior motives, and the success 
of the food supply from a perspective of wellness is rarely considered. 
But I hope we can move in a direction where the quality of our food 
trumps the quantity, and falsely funded studies that are aimed at 
proving false points of improvement can be identified for what they 
are, propaganda.
    Thank you. Warm regards.

Mark Orlowsky.
                                 ______
                                 
                          Comment of Mary Orr
    Date Submitted: Friday, May 18, 2012, 10:59 p.m.
    City, State: Velarde, NM
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: Fruit depends on clean air, clean water, and pollinators. 
Please protect them and the poisons of industry and neonicotinoid 
containing herbicides that ARE killing bees.
    Protect small farms and help them stay as farms.
                                 ______
                                 
                     Comment of Jerry Ortiz y Pino
    Date Submitted: Friday, May 18, 2012, 3:44 p.m.
    City, State: Albuquerque, NM
    Occupation: Retired Social Worker
    Comment: I endorse wholeheartedly the concept of locally-produced 
foods and protection against corporate agriculture's attempts to in any 
way limit growers' ability to make their own decisions about crops.
                                 ______
                                 
                         Comment of Joan Orton
    Date Submitted: Sunday, May 20, 2012, 6:37 p.m.
    City, State: Nunda, NY
    Occupation: Retired Secretary
    Comment: New York Farm Bill . . . First and foremost I believe we 
need to clean up our food supply--that is; produce more locally 
sustainable foods, use fresh-frozen, cut back on importing foods. Maybe 
the USDA or whatever branch handles inspections and verification of 
clean food should be given more employees and sites of inspections. 
Farmers also need to be paid a FAIR price for their food and dairy 
products. Small farmers are getting edged out by the large farm 
operators. The large operators are known to use inhumane practices on 
all kinds of farm animals--this must Stop. Also stop injecting anti-
biotics into these animals--Only when necessary. This nation needs to 
grown enough food to handle feeding our people--All people, not just 
those who can afford to go to the store, but those living in poverty 
who cannot afford to buy much of any good food.
    Let the farmers hire the Mexicans or Puerto Ricans or whoever, just 
make them have documents proving that they are paying them a fair wage 
and that it is not taking away a job from some other capable worker.
                                 ______
                                 
                        Comment of Tony Osborne
    Date Submitted: Saturday, May 19, 2012, 4:20 a.m.
    Occupation: Musician
    Comment: I am totally opposed to GMO--and the tactics used to force 
it down the world's throat. I am totally in favor of Organic/Biodynamic 
and Free Range.
                                 ______
                                 
                         Comment of Alex Oshiro
    Date Submitted: Wednesday, May 09, 2012, 8:55 p.m.
    City, State: Honolulu, HI
    Occupation: Disc Jockey
    Comment: Please do what you can to create a sustainable future for 
us all by growing more food locally so that we may feed ourselves and 
not be dependent on shipping food from elsewhere.
                                 ______
                                 
                         Comment of Rudy Oswald
    Date Submitted: Wednesday, May 09, 2012, 4:28 p.m.
    City, State: Potomac, MD
    Occupation: Retired
    Comment: Each week, I deliver meals on wheels, & see the difference 
that these food programs mean to the shut-in & also to low income 
elderly households. Don't cut these important programs.
                                 ______
                                 
                     Comment of Kathleen Ott-Davis
    Date Submitted: Saturday, May 19, 2012, 12:19 a.m.
    City, State: San Leandro, CA
    Occupation: Artist
    Comment: I am 58 years old. I eat 99.9% organic food. I do not even 
have to take aspirin. My other family members take meds . . . but are 
starting to change to organics. I am older than they are but feel 
better and they want to have my energy and wellness . . . not only is 
organics more nutritious than conventional and GMO food. Organics just 
might save the bees so homo sapiens can stay around awhile. No bees . . 
. no food . . . no food . . . no people! Thank You For Listening . . . 
Bye The Way, What I Save Not Having Any Medical Bill Or Pharma Bills, 
Helps Pay For The Organics.
                                 ______
                                 
                        Comment of Marie Overall
    Date Submitted: Saturday, May 19, 2012, 10:46 a.m.
    City, State: Salt Lake City, UT
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: As a home gardener and advocate for healthy, locally 
raised food, I encourage you to vote for a farm bill that will Support 
Organic, Responsibly Raised Food, And Local Farmers. Big agribusiness 
practices are destroying our soil, air and water; and our food is 
becoming less healthy. Please add your vote to promote a healthy 
country.
                                 ______
                                 
                       Comment of Ashle Overlock
    Date Submitted: Wednesday, May 09, 2012, 2:24 p.m.
    City, State: Carson City, NV
    Occupation: Social Worker
    Comment: The farm bill proposed will greatly reduce funding 
currently allocated to the SNAP program, which is the only source of 
food for many of my clients. As an Employment Case Manager, I work with 
many low-income clients, who are trying to get their lives back on 
track, and need to utilize food stamps until they can find work. These 
are people that are doing everything they can to become self-sufficient 
in a tough economy, and this bill would likely leave them hungry.
                                 ______
                                 
                       Comment of Romy Overstreet
    Date Submitted: Thursday, May 17, 2012, 10:37 a.m.
    City, State: Indianapolis, IN
    Occupation: Journalist
    Comment: Please keep in mind vital programs which ensure that no 
one goes hungry especially seniors. Hunger in America is a problem in 
the same way that obesity also plagues us. American farmers are the 
backbone of America and any farm bill must ensure they stay strong as 
economic contributors.
                                 ______
                                 
                       Comment of Barbara Overton
    Date Submitted: Thursday, May 10, 2012, 5:07 p.m.
    City, State: Atlanta, GA
    Occupation: Nonprofit Administrator
    Comment: Billions of dollars in cuts to food stamps would be 
devastating to the vast numbers of Americans who need this assistance 
to weather the storm of job loss or underemployment.
                                 ______
                                 
                        Comment of Sheila Owens
    Date Submitted: Friday, May 18, 2012, 7:15 p.m.
    City, State: Iuka, MS
    Occupation: Disabled Registered Nurse
    Comment: I am sick and tired of our government giving breaks to the 
rich and taking away from those who desperately need it. What has 
happened to this country? Millions of children go hungry while big 
companies like Monsanto get tax breaks. Food stamps to be cut? I guess 
if you can't find a job, the government will starve you out. Check that 
one off the list. Small farmers get no help, their farms go under and 
that's ok. Maybe they'll get so depressed they commit suicide. Check 
that one off. If I seem cynical and sound disrespectful, I am. I want 
to see members of our government work for Americans, the Americans who 
voted for YOU. Do your job and help those who need it, tax big business 
like you tax us.
                                 ______
                                 
                     Comment of Jennifer Oxborough
    Date Submitted: Monday, April 02, 2012, 5:54 p.m.
    City, State: New Prague, MN
    Occupation: Social Work
    Comment: I strongly urge you to support existing funding levels for 
the SNAP within the farm bill. One in nine Minnesotans struggle to put 
food on the table. In Scott County, 8.3% if the population is food 
insecure. SNAP is critical to maintaining good nutrition and health 
among our population. Economic studies in MN show that people who lack 
access to proper nutrition are more often chronically ill; children 
don't fully develop physically and cognitively are are more prone to 
fail courses, repeat grades, and drop out of school before graduation. 
The cost of hunger's impact--largely as uninsured medical care--is 
conservatively estimated at 1.6 billion annually. Cutting SNAP or 
limiting access to it will increase charity caseloads for the counties, 
which will be borne by local property taxes. As a Constituent and as a 
public servant, I strongly oppose cute to critical anti-hunger programs 
SNAP, TEFAP as well as Commodity Food Program for seniors and Women, 
Infants, and Children.
    For our sake and the sake of our neighbors who can't earn enough to 
get the food they need, it is important to maintain funding programs 
that provide basic food assistance programs.
                                 ______
                                 
                         Comment of Miranda P.
    Date Submitted: Friday, May 18, 2012, 1:25 p.m.
    City, State: Bellingham, WA
    Occupation: Financial Services
    Comment: Healthy food leads to healthier, more productive, less 
sick people, and it also provides jobs. So we get more jobs, less 
healthcare costs, and a better environment. Organic foods have more 
nutritional value than non, and it's more sustainable.
                                 ______
                                 
                      Comment of Kimberly Pacifico
    Date Submitted: Saturday, May 19, 2012, 8:17 a.m.
    City, State: Chesterland, OH
    Occupation: Childcare
    Comment: I am greatly disheartened that this is happening to us . . 
. and to our children. Stop messing with the balance of nature! Profit 
means nothing! Especially when we are dealing with malnourished humans 
(and insects). We are losing our muscle tone and our brain power as 
well as our ability to resist illness, there can be no real question 
that this is directly related to the modified ``food'' we have been 
tricked into eating . . . and even planting. No more GMO . . . please. 
It is not too late to make this right.
                                 ______
                                 
                       Comment of Monica Padilla
    Date Submitted: Thursday, May 17, 2012, 9:00 p.m.
    City, State: La Mesa, CA
    Occupation: Medical Technologist
    Comment: It is so important to support our family farms because 
they are the places that truly care about the quality and integrity of 
the products they distribute to the public. They are invested in their 
land and the produce they grow. Agribusiness is not the only source for 
our food supply. Unfortunately, they cannot always be depended upon to 
be ethical, because of their profit motives. They are not connected to 
the land in the way that the family farmer is.
                                 ______
                                 
                         Comment of Alice Page
    Date Submitted: Friday, May 18, 2012, 9:40 a.m.
    City, State: Kingsport, TN
    Occupation: Independent Business Owner
    Comment: GMO needs to stop--consumers need all packaging on food 
items to be transparent. I want to know what I am buying always! Do 
people stop and think? ``Why is this nation so rich but is so sick?'' 
Well hello look to Monsanto and thank them.
                                 ______
                                 
                         Comment of C. Jay Page
    Date Submitted: Friday, May 18, 2012, 7:34 p.m.
    City, State: Reedley, CA
    Producer/Non-producer: Producer
    Type: Livestock, Poultry/poultry products
    Size: Less than 50 acres
    Comment: Please remember that you serve the local small farmer 
serving your community with healthy food. Small farms provide more jobs 
per acre and we therefore need less regulation as we don't have the 
resources to handle lots of paperwork. We need government's help in 
rebuilding the local harvest facilities for beef that are USDA. I 
shouldn't have to drive to Los Banos to butcher my beef to then have it 
hauled back to Fresno to be cut up and packaged and then hauled back to 
my farm. Vermont solved this problem by purchasing mobile equipment and 
then leased it out to the butchers and processors. Even Forbes reported 
that 20% of the food for cities will be produced locally by 2015. Do we 
want to be on the front of the movement or trailing behind? Buying 
locally means more jobs locally. I have a very small farm and I employ 
3 people full time and one to two persons part time.
                                 ______
                                 
                          Comment of Nick Page
    Date Submitted: Saturday, May 12, 2012, 3:45 p.m.
    City, State: Ferndale, WA.
    Occupation: Teacher.
    Comment: We need a strong farm bill--one that protects and 
strengthens programs like TEFAP, SNAP, and CSFP--to help put food on 
the table for vulnerable children, seniors, and low-income families.
                                 ______
                                 
                      Comment of Katherine Painter
    Date Submitted: Friday, May 18, 2012, 4:05 p.m.
    City, State: West Hartford, CT
    Comment: SNAP benefits are really important to me because I have a 
lot of mental, emotional and other problems that makes it very 
difficult to live. I'm in the process of trying my social security. If 
I hadn't gotten help by the state, I'd have nothing. Please don't cut 
the SNAP funding. It's the only thing keeping my head above water.
                                 ______
                                 
                        Comment of Lorna Paisley
    Date Submitted: Friday, May 18, 2012, 12:49 p.m.
    City, State: Joliet, IL
    Occupation: Retired Teacher and Home Gardener
    Comment: My son just got back from France where people only eat 
organic food. They won't even take our antibiotic feed meat. What the 
hell is wrong with this country? It is time for our congress to catch 
up with the rest of the world and to protect its citizens.
                                 ______
                                 
                      Comment of Jennie Pakradooni
    Date Submitted: Friday, May 18, 2012, 12:43 p.m.
    City, State: Jamaica Plain, MA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I have just been made aware that the Senate Agricultural 
Committee voted to cut $4 million from organic research funding and has 
cut funding to support Beginning Farmers in half.
    As a small scale grower of fruit and vegetable crops, I am writing 
today in support of the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286), full funding of conservation 
programs such as the Conservation Stewardship Program, and ensuring 
that enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs.
    I ask that all provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236) be implemented, and that the EQIP Organic 
Initiative be maintained.
    Farmers and consumers require and deserve a fair, healthy, and 
sound farm bill. I most strongly urge to see that this comes to pass as 
soon as possible.
                                 ______
                                 
                         Comment of Laura Palm
    Date Submitted: Friday, May 18, 2012, 10:44 a.m.
    City, State: Sedona, AZ
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Representative Gosar,

    Please support the growth of small organic farms in this year's 
farm bill. Subsidies for commodity crops, and chemical inputs do not 
make healthier soil, healthier citizens, or a more secure food supply.
            Thank you,

Laura Palm.
                                 ______
                                 
                       Comment of Deborah Palmer
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: Lakewood, CA
    Occupation: Realtor
    Comment: As a cancer survivor and vegan, I believe we need to rid 
our planet of GMO's and invest in organic, sustainable produce instead 
of subsidizing big agribusiness who do not have the health of the 
country at heart. California is getting shafted in this bill as well.
                                 ______
                                 
                       Comment of Paulette Palmer
    Date Submitted: Friday, May 18, 2012, 11:15 p.m.
    City, State: Omaha, NE
    Occupation: Retired Educator
    Comment: I have been following recent changes to farm bills. I am 
in favor of H.R. 3286.
    However, when reading about insurance subsidies in your new 
proposal, I can see huge problems if limitations are Not put on crop 
insurance subsidized programs. You are opening the door to extreme 
fraud. For example, make the cutoff (for subsidy) at 1,000 acres. This 
would even the playing field for all. (When my kids complained about 
their low subsidy [allowance], I told them if they didn't like it, they 
could give it back to me. They learned to be economical and self-
sufficient. Limitations are not a bad thing!)
    Also any new insurance subsidy should be tied to compliance with 
the Conservation Stewardship Program. Our country is in a lot of 
financial trouble on many fronts. Let's try to keep agriculture out of 
that group.
    Take care of the soil, take care of the small family farms/ranches, 
and they will take care of the nation.
                                 ______
                                 
                         Comment of Reed Palmer
    Date Submitted: Saturday, May 19, 2012, 1:14 p.m.
    City, State: Carrboro, NC
    Occupation: Environmental Engineer
    Comment: I am concerned that our nation's food production system 
has been hijacked by large corporations whose primary interest (profit) 
is at odds with the well-being of the vast majority of our citizens. 
While making a profit is a valid and important motivation for any 
business, the externalities (i.e., failures of the free market to 
achieve a competitive and fair system of commerce) that agribusiness 
place on the rest of our society are too great to continue to ignore. 
These market failures of our commercial agriculture system are many and 
include information asymmetry (a lack of information on food 
nutritional quality, GMO labeling, location of production) and severe 
pollution. The costs we all bear for this are too high to continue on 
with business as usual. Some proposed measures that will make 
incremental improvements in this system include:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

    Thank you very much for your consideration.
                                 ______
                                 
                         Comment of Tim Palmer
    Date Submitted: Friday, May 18, 2012, 9:46 a.m.
    City, State: Truro, IA
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock
    Size: 500-999 acres
    Comment: I agree with most that a time has come to end the direct 
payment subsidies for farmers. However, this is taking away the primary 
way that conservationists have of keeping farmers with bad farming 
practices from damaging our farmland.
    I think all should do our best to protect that farmland and I 
believe that any entity receiving taxpayer monies in the forms of 
subsidies and grants should be held to definite levels compliance and 
use of best management practices.
    Even the programs for beginning farmers should be written so that 
those grants are accompanied by expectations that young producers 
should be held to at least minimum standards for environmental 
protection.
    I feel that if we are doing the best we can with these grant and 
loan programs in the ag sector, we can reasonably argue that other 
departments of Federal government should follow the same high 
standards.
            Thank you,

Tim Palmer.
                                 ______
                                 
                         Comment of Nimai Palo
    Date Submitted: Wednesday, May 09, 2012, 3:24 p.m.
    City, State: New York, NY
    Occupation: Administrative
    Comment: We must take care of our parents and their generation 
which have laboriously and steadfastly built the great country we now 
enjoy the fruits of. If we fail to take care of them, I am sure we will 
not enjoy for long.
                                 ______
                                 
                    Comment of Brita Palomino, R.N.
    Date Submitted: Friday, May 18, 2012, 2:06 p.m.
    City, State: Irvine, CA
    Occupation: Registered Nurse
    Comment: As a nurse I have come to the realization that our 
nation's industrialized food system is making the American people sick. 
We are not getting the nutrients necessary to maintain a healthy immune 
system which is the fundamental groundwork to fighting disease. Adding 
insult to injury, we are consistently asking our bodies to deal with 
chemicals that further tax our immune system. I've always been of the 
mindset that prevention is the best medicine, however, the way our 
present industrialized food system has evolved, our children don't even 
have a chance. If we are going to subsidize anyone, it should be local 
organic farmers not multimillion/multibillion dollar agribusinesses. To 
me it's as simple as that. As representatives of the people, I plead 
with you not bend to the wills (and pocketbooks) of the corporations 
who clearly, clearly do not have the best interest of the American 
people as their priority.

Brita Palomino, R.N.
                                 ______
                                 
                        Comment of Penni Palthe
    Date Submitted: Saturday, May 19, 2012, 3:53 p.m.
    City, State: Grand Junction, CO
    Occupation: Grandmother
    Comment: There are many ranchers and farmers here in Colorado who 
have owned and run their own farms for generations. Big AG corporations 
are the worst possible answer to food shortages, they pollute and 
destroy land. They foul our water resources with massive amounts of 
pesticides and bring down the health of our citizens with the overuse 
of antibiotics because of bad ranching policies. These companies do Not 
care about the land, the people, the communities nor the health of the 
food they are producing. The bottom line $$$profit$$$ is all that is 
important to them. If we are to have a sustainable future that insures 
the best possible food, the best use of land and resources which are 
sustainable, we very much need to ensure that our local ranchers and 
farmers are given a priority as far as subsidies and laws which protect 
Their lands and futures. We Coloradans, love our state and the 
diversity of agriculture and ranching here. We love the beauty of our 
state and are thankful for the water in all it's forms that is 
available to us. We do not want CON-AGRA to take over the land from our 
farmers or our ranchers, we want clean air, water, land and the food 
that is grown with these so that our health and the health of 
generations to come may live healthy, happy lives in beautiful 
surroundings in our communities.
                                 ______
                                 
                        Comment of Sharon Paltin
    Date Submitted: Saturday, May 19, 2012, 2:40 a.m.
    City, State: Laytonville, CA
    Producer/Non-producer: Producer
    Type: Field Crops, Fruits, Livestock, Vegetables
    Size: Less than 50 acres
    Comment: Time to modernize ecologically, support Organic farming, 
support family and small farms, support diverse and local food 
production. End Genetically Engineered crop contamination of 
conventional/heritage genes/seeds and the breeding of super weeds, and 
the heavy pesticide burdens those GMOs require. End subsidies to push 
GMOs. Build the soil, reduce erosion and water waste. Explore 
cogeneration of fuels from ag waste for running farm machinery. Feed 
the poor.
                                 ______
                                 
                       Comment of Colleen Pancake
    Date Submitted: Friday, May 18, 2012, 2:45 p.m.
    City, State: Fayetteville, AR
    Occupation: Video Producer
    Comment: It is time to support, local, sustainable, organic 
agriculture and not time to cut the funding that supports it. It is 
time that big business was removed from the equation of who controls 
our food production. The concentration of power is unhealthy for our 
nation and world. Stop the subsidies of non-organic farming and hold 
companies that risk the future of our soils health accountable. It is 
time for the health of the consumer to be first and foremost in the 
process of food production.
                                 ______
                                 
                      Comment of Jeffrey Panciera
    Date Submitted: Friday, May 11, 2012, 12:39 p.m.
    City, State: Seattle, WA
    Occupation: Retired
    Comment: We American consumers walk around with over 80 toxic 
compounds in our blood stream. We need you to reduce that by giving tax 
credits to small farmers who do not use pesticides, and who do not 
practice mono-culture (which necessitates pesticides). The reduction of 
pesticides (especially those used by ordinary homeowners) will also 
save our bees (and $90 billion if bees are eliminated).
                                 ______
                                 
                       Comment of Della Pangborn
    Date Submitted: Sunday, May 20, 2012, 4:51 p.m.
    City, State: Beaverton, PA
    Occupation: Clerical
    Comment: Being able to access truly organic and healthy food is 
extremely important to me and everyone in my family. This should be a 
right and not compromised by big-agribusinesses.
                                 ______
                                 
                        Comment of Victor Papale
    Date Submitted: Friday, May 18, 2012, 12:49 p.m.
    City, State: Pittsburgh, PA
    Occupation: Social Service Administrator
    Comment: Please preserve and strengthen all food assistance 
programs in the farm bill, especially the SNAP program, which serves 
hundreds of thousands of adults and children in our region and helps 
them to maintain a decent standard of living in the face of long-term 
unemployment and underemployment. Until such time as working families 
can bring home an income that meets their needs, and until such time as 
unemployed families can find decent paying jobs, SNAP and other food 
assistance programs in the farm bill, are literally essential to their 
health and well-being. A better way to move the Federal budget to 
balance is to greatly reduce military spending, which far exceeds 
anything we need to protect our national security.
                                 ______
                                 
                       Comment of John Papandrea
    Date Submitted: Friday, May 18, 2012, 9:36 a.m.
    City, State: New York, NY
    Occupation: Electrician
    Comment: We Need To Break the hold of corporate agriculture and 
encourage/protect smaller family farms and their diversification. We 
can't allow GMO's to contaminate our food supply and we can't continue 
to bathe our crops in toxic chemicals simply to avoid using safer more 
traditional methods to maximize yields. Farms have become too big to 
fail when a crop's contamination can affect almost fifty states--we 
must not allow ourselves to be so vulnerable.
                                 ______
                                 
                         Comment of Tom Papell
    Date Submitted: Sunday, May 20, 2012, 7:53 a.m.
    City, State: Northport, NY
    Occupation: Carpenter
    Comment: Please stop subsidies to corn and soy so vegetable farming 
can become more competitive. I am against all genetically-modified 
crops and if you insist on allowing them they must be accurately 
labeled so those of us who choose to avoid them are respected. You 
policies should be favoring the small farmer who is producing food for 
local consumption because that is the inevitable future for our country 
given the growing scarcity and expense of fossil fuels and the climate 
consequences to burning so much oil. Please Remember That Government's 
Job Is To Represent The Many People, Not The Few In Big Business.

Tom.
                                 ______
                                 
                       Comment of Nicholas Pappas
    Date Submitted: Friday, March 16, 2012, 7:18 p.m.
    City, State: Delray Beach, FL
    Occupation: Retired
    Comment: We have to a continue feeding those in tremendous need. 
Our country is falling apart from the seams with such sheer neglect 
imposed upon the American people by corporates and their ever greedy 
CEO's.
                                 ______
                                 
                       Comment of David Paprocki
    Date Submitted: Friday, May 18, 2012, 4:49 p.m.
    City, State: Washington, D.C.
    Occupation: Trainer--Global Health
    Comment: Please help pass a robust organic farm bill. Please 
consider the health of the land and the people over the wishes of the 
corporations. Think of the bigger picture here.
    Thank you.
                                 ______
                                 
                     Comment of Elizabeth Papsdorf
    Date Submitted: Sunday, May 20, 2012, 11:45 p.m.
    City, State: Spring Lake Hts., NJ
    Occupation: Retired
    Comment: I would be happy to pay higher prices for better foods. I 
want GMO foods labeled, becuase I would prefer not to buy them.
    I want cage free hens to be the norm. Why can't we have Cruelty 
free animal husbandry--no confinement and better feed.
    No BGH in my meats. No antibiotics either.
    No hiding the dangers of GMO and roundup ready seeds.
    If the U.S. really cares about its farmers and its citizens, then 
we should Protect organic farmers and Protect small farms from the big 
agribusiness interests.
                                 ______
                                 
                      Comment of Wayne M. Paquette
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Brooklyn, CT
    Occupation: Green Ornamental Nursery Owner
    Comment: All of us deserve clean food, water and air. We all must 
know what it is we are opting for when we shop whether it be honest-to-
goodness organic, chemically induced or GMO. Do what you're there to do 
for we, the people. Industry is going to do just fine. Get it right or 
get out of our way.
            Sincerely,

Wayne M. Paquette.
                                 ______
                                 
                        Comment of Terra Parchen
    Date Submitted: Friday, May 18, 2012, 1:32 p.m.
    City, State: Missoula, MT
    Occupation: Retail Associate
    Comment: As a citizen of this nation I am writing to urge congress 
to fully support the Local Foods, Farms and Jobs Act (H.R. 3286), the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236), as well as 
funding for conservation programs like the Conservation Stewardship 
Program and maintain the EQIP Organic Initiative. As a developed 
western nation I also believe that Genetically Modified foods need to 
be Labeled! The arguments against labeling are ridiculous and everyone 
should have the right to know what they're eating and make their own 
decisions in regards to their food and their health. It's time congress 
did its Job--to maintain the integrity of the constitution for the 
well-being of the citizens of this nation--not Corporate America. Look 
deep down inside and find that conscience that still exists in there.
                                 ______
                                 
                        Comment of Laura Parfrey
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: Boulder, CO
    Occupation: Biologist
    Comment: There is a rich agricultural tradition in the United 
States that built the foundation of our communities and country. 
However, we are now in danger of losing farming communities and good 
agricultural jobs across the country because of the rise of 
agribusiness and the focus on a very small number of commodity crops. 
Supporting small farmers with diversified operations has myriad 
benefits to the economy (with the only exception being giant 
agribusiness and chemical corporations), our communities, and will 
indirectly promote better policies for the environment and our health. 
There is every reason to fight hard to reform the farm bill.
                                 ______
                                 
                         Comment of Bruno Paris
    Date Submitted: Saturday, May 19, 2012, 10:45 a.m.
    City, State: Jersey City, NJ
    Occupation: Food Service Specialist
    Comment: I like to see more wholesome food available and more 
support for those that are taking the lead and working hard to achieve 
this goal for humanity.

Bruno Paris.
                                 ______
                                 
                        Comment of Danette Paris
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: Moon Township, PA
    Occupation: Registered Nurse
    Comment: Shame on those choosing money over people.
    As agribusiness has grown, as GMO's have become more common, as 
plants are hybridized into something completely different from the 
original components or donors, as animals pumped with hormones and 
antibiotics have become the norm, our country's health has plummeted.
    The people with all the money are not necessarily looking out for 
the best interest of the whole. They are looking out for the best 
interest of their bottom line and their stockholders.
    Progress is not a bad thing. In terms of farming and our food 
supply, progress means returning to nature and a natural way of raising 
plants and animals. Stop adding chemicals to our food and telling us 
how good they are.
    We are obese because our food is no longer nutritious. We are 
eating more calories in an attempt to consume the nutrients that are no 
longer there. We are fat and undernourished. And the people we rely 
upon for our daily bread fatten their checkbooks and remain apathetic.
    Do the right thing by those who voted you in office, not by those 
who bought and are keeping you.
                                 ______
                                 
                     Comment of Eleanor Parisi-Shaw
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: St. Petersburg, FL
    Occupation: Retired
    Comment: Our agricultural system is in need of drastic reform. Do 
not cut food stamps instead of subsidies; support organic farming; 
factory farms are killing us!
                                 ______
                                 
                       Comment of Debora Parisot
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: Earlville, IL
    Occupation: Teacher
    Comment: Please support H.R. 3286. I am very concerned about GMOs 
in food and my right to organic food. I live in a rural area and have 
been sprayed with aerial and ground pesticides. They are applied 
without regard to wind direction or the presence of humans. More and 
more research is showing the harm in GMO crops and pesticide use. The 
factory farm lobby should not be allowed to monopolize the debate.
                                 ______
                                 
                        Comment of Soohyen Park
    Date Submitted: Sunday, May 20, 2012, 10:55 p.m.
    City, State: Brooklyn, NY
    Occupation: Gardener
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. My name is Soohyen, 
and I had my first garden in Williamsburg, Brooklyn about 7 years ago. 
I have never gardened before, but soon realized that it was a blessing 
to come home after a tough job in the advertising industry, and be able 
to enjoy the garden bathed in setting sunlight and watch my tomatoes 
grow. It was a revelation when I bit into my first home-grown tomato. 
We've all forgotten what a real tomato should taste like. Now, I am 
trying to tend a quietly suffering Greenpoint garden back to health. As 
you may well know, Greenpoint soil is not recommended for growing 
food--as with many other areas of urban Brooklyn. Still, I feel it my 
duty to nurse the garden back to health, as much as I can, so that in 
time it would become a healthier place. This is good for me, for the 
next tenant, and ultimately it's crucial for our Mother Earth. I ask 
that the Committee endorse all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely, and with Warmest Regards,

Soohyen Park.
                                 ______
                                 
                       Comments of Deborah Parker
    Date Submitted: Friday, May 18, 2012, 3:04 p.m.
    City, State: Peekskill, NY
    Occupation: GIS Specialist
    Comment: U.S. food and agricultural policy must focus on adopting 
agricultural practices that best protect the health of American 
citizens, American farmland, air and waterways, and the livelihood of 
farmers and farm workers. These must be our top priorities, rather than 
the short-sighted profiteering and self-interest of industrial 
agriculture lobbyists and corporate agribusiness. Farmers and families 
everywhere need a fair and healthy farm bill. Congress also must not 
cut funding for vital nutrition and conservation programs, and must 
strengthen support for organic and sustainable agriculture programs and 
practices. America's health depends on clean, safe, wholesome foods, 
grown with our grandchildren in mind.
    Date Submitted: Saturday, May 19, 2012, 11:55 a.m.
    Comment: U.S. food and agricultural policy must implement 
agricultural practices that protect the health of Americans, our land, 
water & air, and the livelihood of farmers and farm workers.
    Corporate agribusiness must not be allowed to dictate our 
agricultural policy.
    Farmers and families across the U.S. need a farm bill that does 
continues to fully fund vital nutrition and conservation programs, and 
supports organic and sustainable agriculture.
                                 ______
                                 
                       Comment of Jennifer Parker
    Date Submitted: Friday, March 16, 2012, 5:47 p.m.
    City, State: Las Vegas, NV
    Occupation: Administrative
    Comment: We need any help we can possibly get to help people have 
food & fresh food. Please support any programs or bills to assist in 
this effort. No one should go hungry especially in our own country.
                                 ______
                                 
                       Comment of Mary Jo Parker
    Date Submitted: Friday, May 18, 2012, 2:47 p.m.
    City, State: Saint Paul, MN
    Occupation: Market Research Analyst
    Comment: To House Agriculture Committee Members:

    I am an Iowa farm girl who has moved to the city of St. Paul, MN. I 
am a strong supporter of organic food for health reasons, and I 
purchase my food from sources I trust, including--my local coop, the 
local Farmers Market, and a CSA from a local organic farmer. My health 
has benefited greatly from the support I've found in this area of the 
country.
    I understand that you are considering cutting funds for organic 
farming, and slashing funding for food stamps (I especially don't 
understand how slashing support for the most needy among us helps us as 
a nation). I want to make it clear about the aspects of the bill I do 
support. They include:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I ask that you support these measures. Food is such an incredibly 
important aspect to health, and as a nation, we are in need of eating 
healthier foods. Support for organic farming will move us in the right 
direction . . . It may even help lower health costs if you begin now to 
change farm policies away from ``cheap food (unhealthy)'' to 
``sustainable food (healthy)''. We need to move in this direction now.
            Sincerely,

Mary Jo Parker.
                                 ______
                                 
                         Comment of Rana Parker
    Date Submitted: Sunday, May 20, 2012, 11:21 p.m.
    City, State: Los Angeles, CA
    Occupation: Dietitian
    Comment: As a registered dietitian, I am concerned about the 
discrepancy between what crops our government subsidizes and the 
nutritional recommendations. If all Americans ate the recommended 
amount of fruits and vegetables, there wouldn't be enough to provide 
for them. The farm bill should better coincide with the nutritional 
recommendations to Save our country from the ruin of obesity & its 
consequences.
    I also would like to see more support for small, organic farmers.
                                 ______
                                 
                       Comment of Richard Parker
    Date Submitted: Saturday, May 19, 2012, 12:22 a.m.
    City, State: Fresno, CA
    Occupation: Hearing Reporter
    Comment: We need a farm bill that supports safe, nutritious food 
from organic, sustainable agriculture. There is no place for over-
medicating animals with antibiotics, sick, downer cows being fed 
genetically modified and heavily pesticide ridden grains in a 
sustainable, healthy food supply. This only adds to making an unhealthy 
population.
                                 ______
                                 
                        Comment of Steve Parker
    Date Submitted: Wednesday, April 25, 2012, 9:48 p.m.
    City, State: Greenfield, NH
    Occupation: Student
    Comment: In order to understand the need for sustainable concepts 
being integrated into our lives we need to firstly understand the 
problem. Climate change, failing supplies of carbon based fuels and 
food supply to populations are three of the large issues we need 
consider. A target date of 2050 will be used to illustrate changes to 
come, though changes will not stop there.
    Climate change is a well documented phenomenon. The tipping point 
for greenhouse gas based extinction is estimated at 350 ppm carbon 
dioxide. Our planet is presently at 393 ppm carbon dioxide. Here are 
some estimates of what this one factor will look like in 2050. 
Temperatures are expected to rise 5.4. 70% of U.S counties face water 
supply risks. World fisheries will have collapsed, both from 
overfishing and changes to the ocean circulation and temperature. The 
ocean is forecast to rise by 20 inches; this will place over $7 
trillion in U.S. assets in jeopardy. More than one million species of 
plants and animals will be extinct. 50% of the permafrost is estimated 
to be melted, releasing large amounts of methane further warming the 
climate and rendering these areas uninhabitable. The ice caps are 
mostly gone. These factors will all combine to cause a change in the 
way we will be living.
    It is hard to understand how deeply our present civilization relies 
upon petroleum. Medicine, technology and all economies need it for 
survival. Oil has allowed our population to grow and flourish. Oil 
production has been linked to population growth by allowing us to grow 
food, provide heat and cooling and develop economies based upon it. It 
in effect determines our carrying capacity as a species. The ``Green 
Revolution'' in the 1970's and 1980's allowed us to fend off a global 
crisis in food supply with oil based fertilizers and pesticides. As oil 
production decreases so will our population. Oil production will be 
around 20% of today's numbers by 2050. Depending on which of the 
variety of scenarios you look at for the year 2050 the carrying 
capacity of our planet will be between 2 and 3.5 billion. Losing cheap 
energy from oil will change the way we get our food and produce our 
products. No longer will we be able to transport our goods long 
distances.
    Economies will become more local because it will no longer be 
possible or profitable to travel long distances. It is ironic that the 
discovery of plentiful oil has led to such growth in culture and 
populations. The same discovery created the pollution levels that will 
plague our planet for thousands of years and as the supply diminishes 
the culture and population will also. So though you don't hear about it 
much global warming, the population boom and oil use are really all the 
same subject.
    Estimating food supply for future generations brings up an area of 
contention amongst scientists. What will our population be by 2050? 
Population scientists say it will grow to 9 billion by 2050. Global 
warming scientists estimate we will lose \1/3\ of our population in 
that time due to loss of farming land, disease and famine. The 
scientists that study oil impacts think our population will drop by \2/
3\ just from the decline of oil in our society. It is hard to believe 
this kind of change can occur but somewhere in the future, most 
estimates locate the big die off around 2030, growing populations, 
falling energy reserves and food shortages will bring about a change in 
our population. How many can survive depends on how many people we can 
feed locally. The Dark ages, the little ice age and the great wars are 
all examples of population losses. This is the first time we are 
looking at the implications of this kind of population loss where we 
can choose to do something about it beforehand.
    What kind of change can we expect in economies by 2050? Financial 
studies show China outgrowing the United States by 2030 and India 
passing our country by 2050 from an economic viewpoint. These reports 
are based on limitless resources and cannot be considered accurate 
representations of a business market. This helps illustrate an issue 
with business models. They have yet to incorporate factors that involve 
world issues. If only 20% of fossil fuels remain in 2050 then there 
must be a similar impact upon manufacturing, transportation and 
economies but today's future models seem blind to the any facts about 
changes. If world supply of petroleum products is at 20% of today's 
levels it is logical to assume most of that product will be used by the 
world's militaries to control the remaining supplies. Add to this the 
affects of global warming on our ability to conduct our lives and what 
do you have? Lessened populations and more local economies will become 
the trend for our near future. No longer will growth be the norm in 
future business. Growth will be the adversary. These are some of the 
reasons we need to start thinking about sustainable lifestyles and now 
we know what to design our sustainable systems around, the decline of 
petroleum products.
    Roughly \2/3\ of petroleum products in industrialized nations are 
used for transportation. The bulk of the remainder is used in 
industrial processes. If the remaining 20% of oil production is used by 
militaries, governments and law enforcement there is not much left for 
public use. Transportation in the near future is our first issue 
whether it is in business or food production. Present trends in local 
agriculture to help feed people are not going to change. Sustainable 
food production is one area of our future that shows great promise. 
Most rural areas will be able to provide their own food. This will in 
time require towns to produce their own commodities like corn and wheat 
as well as vegetables and meat. The urban areas present a different 
problem. There are not enough land areas to feed the numbers of people. 
Without the ability to transport food into these areas people will need 
to move to other areas with more available land for producing their 
food.
    Today's sustainable food systems are building local food hubs just 
outside these urban areas to give local farmers the capability to 
gather their food products for distribution, however as time progresses 
these lands will become needed to grow commodities, meat and crops for 
the people who live there. The urban areas will need to spread out 
their populations in order to be able to provide for themselves. The 
carrying capacity of the United States is estimated around 200 million, 
so right now we have 110 million people who we won't be able to feed. 
Densely populated nations like China and India face much worse 
population losses. Third world countries face greater challenges from 
global warming than oil depletion. Most of these areas are more 
sensitive to climate change because they are already much closer to 
water and crop heat stresses than they are dependent on oil for 
resources.
    Transportation issues in the field of businesses become much harder 
to estimate. Importation of raw materials needed to produce our 
products becomes expensive in the near future. Indeed even importing 
manufactured goods soon becomes too costly. It is possible that large 
ocean going transports will become nuclear but the issue of 
transportation turns our present business model on its ear. It becomes 
an issue of what you need to manufacture more than what want to 
manufacture. The production of electricity relies upon bio-mass, coal 
and nuclear for the most part. Though the cost of electricity will soon 
go up we can at least count on a supply to manufacture our needed 
products. We can grow cotton and raise wool for production of textiles 
and manufacturing of clothing and blankets, though these businesses 
will need to be small and local because you will need produce, 
manufacture and distribute in the same areas. What else can we 
manufacture without the ability to transport over long distances? If we 
grow our own food and clothing and have a supply of electricity what 
else do we need?
    Education has evolved along with our population. There have been 
great adjustments to today's schools as educators try to prepare 
students for the changing landscape. Luckily education can be refocused 
easily as events unfold in the future. This is another area of our 
culture that is preparing for our future. Virtual campuses will 
continue to grow. After all who should best be able to anticipate the 
upcoming events but our teachers? Schools will remain open and the next 
thirty years should be an exciting time to teach and learn.
    Medical practices are necessary and will need to be redesigned as 
our lives change. The insurance industry will have collapsed somewhere 
along the road to 2050 as well as the ability to mass produce medicine 
for the public. Again we will have to rely on local sources to produce 
medicinal herbs. The concept of eating and living healthy will become 
more of a solution to health issues than today's expensive operations 
and healthcare.
    Technology production uses huge amounts of oil and the raw 
materials are widely scattered on the planet so this field will be 
restricted to recycling of present materials with most products being 
used to maintain government and state institutions. Phones and One and 
two way radio service will likely replace expensive televisions and 
computers for our means of communication.
    Fossil fuel cars will soon become a part of the past. Hydrogen fuel 
cells are about 30 to 40 years from practical service. Electric cars 
and trucks will most likely soon dominate the transportation field 
though in much reduced fashion. Without cheap energy these vehicles 
will be too expensive to be affordable for general use. Walking, 
bicycling and horses will be much more practical.
    In looking at today's stock market the entire system relies upon 
trading over long distance. As our world changes so will the stock 
market. This system will break up and making money this way will be 
obsolete. It is likely that the industrialized nations will return to 
much more local stock markets as seen in earlier centuries. Trading of 
commodities like salt, lime and recycled products is likely to grow 
while other markets diminish. The trading of seeds, animals and other 
food products will replace higher tech items.
    These types of forced lifestyle changes have huge impacts on 
economies. The concept of making what we need in local areas will 
consume most of our efforts. Money starts to become an issue. What do 
communities as groups produce to sell? Some type of cash crop or local 
business. We no longer travel out to our jobs. We make our money in 
areas near home. Do tax systems survive? What happens to the national 
debt? The huge budgets that operate our present countries will no 
longer be available. The countries may still exist they just won't 
exist in the same fashion. The organizations of today all base their 
design on growth. From town structure to the largest organizations and 
governments all based on growth. If population declines the revenues 
decline, the remaining population inherits this debt either in the form 
of taxes or cost to purchase a product. This can continue for a short 
time but will eventually lead to collapse of the associated systems. 
This is what I call, ``The Chicken Little hypothesis''.
    Today's organizations can use organizational thought to stream line 
the inputs and outputs of the product lines. Conceptual thought will 
dissolve unions, cut pay and trim insurance packages. As the cost of 
transportation rises we use conceptual thought to build industry first 
near the market, then near the raw resource. The same cycle of 
organizational thought and conceptual thought occurs at each step. 
Streamline operations then cut pay, insurance and automate industry. It 
is easy to think there will be some great breakthrough in energy or 
technology that will allow us to grant future generations access to 
comforts we have without the pollution costs; however there is not 
enough nuclear fuel to power the world for very long and Nuclear, 
Solar, wind, hydrogen and water power cannot scale up before fossil 
fuels collapse. We will still end up at ``The Chicken Little 
hypothesis''.
    We need a solution beyond today's concepts of sustainability. 
Conceptual thought would say, think further outside the box. We are 
working with a finite resource, so it needs to be conserved enough to 
scale up replacement energy sources. Here Organizational thought can 
help us develop these industries. Our first and only priority is to 
slow the present use of petroleum products until we can replace it with 
other energy sources. This should be good for economies, new industry, 
streamlining existing structures, focusing on local agriculture and 
business when possible to conserve fuels. The world needs to at least 
agree upon this one issue.
    If every human went outside and yelled ``stop'' we may hear it said 
worldwide but probably things would not change. To wait for the 
``burning platform'' style of business reform really doesn't work 
because the sky falls. There may be some galvanizing event similar to a 
``burning platform'' that would galvanize organizations to act in 
unison. This could also occur with the general population as things get 
tougher all around the planet. There certainly are a lot of uprisings 
this year. Conceptual thought demands a quick response while 
organizational thought is busy streamlining. However it occurs, it will 
occur.
                                 ______
                                 
                        Comment of Susan Parker
    Date Submitted: Friday, May 18, 2012, 2:15 p.m.
    City, State: Port Townsend, WA
    Occupation: Herbalist/Natural Products
    Comment: Without the health of the whole; Earth, people, soil, 
wildlife and farm animals there will only be death and disease. Put 
health first then all that is good will follow.
                                 ______
                                 
                        Comments of Tammy Parker
    Date Submitted: Wednesday, May 16, 2012 12:10 a.m.
    Occupation: Academic/Researcher
    City, State: Pullman, WA
    Comment: I am a community food security researcher. We must fund 
small and beginning farmers and SNAP programs if we are to improve food 
security for all. Big Ag can fund itself; let's put our scarce money 
where it will do the most good and make the most difference.
    Date Submitted: Friday, May 18, 2012, 11:31 a.m.
    Comment: The farm bill needs to support more small and local 
producers, not big ag who has all the money they could ever need to 
push their nefarious products on farmers and obese Americans. It makes 
no sense at all to subsidize commodity crops that either don't produce 
food or is used to produce food-like substances that are the primary 
cause of the obesity epidemic we face, which has created the health 
care crisis. The farm bill should allocate money only to organizations 
that will ultimately make our country more food secure by making 
healthy, nutritious food available to more people. SNAP programs 
deserve funding, these are the types of programs that will enhance 
American food security.
                                 ______
                                 
                   Comments of Robert Parker Stellato
    Date Submitted: Friday, April 27, 2012, 4:07 p.m.
    City, State: Redwood City, CA
    Occupation: Unemployed Aircraft Mechanic
    Comment: Family Farms are the backbone of this nation and has been 
since before the U.S. Revolution. Family Farms need the financial 
support of our nation to continue to put necessary food on our table 
and keep the U.S. economy healthy and vibrant. This is not so with 
Corporate, and Big Agra farms. They destroy the land, pollute our 
waterways, and drive the Family Farmer out of business. If any cuts to 
our budget in Agriculture must be made, it must be made from the 
subsidies made to Big Agra and Corporate Farming, not the Family 
Farmers!
    Date Submitted: Wednesday, May 09, 2012, 2:52 p.m.
    Comment: Farm subsidies should only be offered to family farm, 
farmed by their owner farmers, not agricultural corporations! Family 
farms must be preserved even at the expense of corporate farms!
    Date Submitted: Friday, May 18, 2012, 3:04 p.m.
    Comment: Subsidies for family farmer only, not for corporate 
agriculture!
                                 ______
                                 
                         Comment of Emmy Parkes
    Date Submitted: Thursday, April 26, 2012, 12:05 p.m.
    City, State: Oxford, MS
    Occupation: Registered Dietitian
    Comment: Dear Congressmen,

    I am greatly concerned about your recent proposal for the farm 
bill, particular the cuts to SNAP and NSLP. These are programs that 
help millions of people every day. They are not free ``handouts''. Many 
of these people work and work very hard, long hours, but because of the 
types of jobs, medical problems, or other family situations are unable 
to afford good, healthy food without SNAP.
    I am also concerned about the cuts to the conservation programs. I 
think these programs are important in order to preserve our future food 
supply.
    Yes, I realize there is a deficit and I do support efforts to cut 
costs. I would like to see the amount of money given to corn, wheat, 
and soy growers decreased or possibly even cut completely. If a farm is 
consistently making >$150,000 a year, it should not need to rely on 
Federal support. Furthermore, Federal support of corn, wheat, and soy 
are one reason that ``junk foods'' can be sold so cheaply but fresh 
fruits and vegetables often cost much more. We are also facing a health 
crisis in this nation and if people don't have access to inexpensive, 
healthy foods, we will only increase the number of people who are 
obese, have high blood pressure, type 2 diabetes, and other health 
problems.
    I believe that Federal money should go to those who need it the 
most--people on SNAP, small farmers, and farmers of what is usually 
termed ``specialty crops''. Please consider improving the quality of 
life for millions of Americans instead of rewarding large corporations 
that contribute to the making of cheap junk food and thus decrease the 
quality of life for millions of Americans.
            Sincerely,

Emmy Parkes.
                                 ______
                                 
                        Comment of Nancy Parman
    Date Submitted: Thursday, May 10, 2012, 12:41 p.m.
    City, State: Oak Park, IL
    Occupation: Spanish Teacher and Food Shelter Volunteer
    Comment: I've served a lot in many food pantries. There are so many 
people in need. There are so many people who can barely feed their 
families and themselves. Please Don't Cut SNAP! Many people need food 
shelters On Top Of what they get in food stamps. Please don't cut SNAP!
                                 ______
                                 
                        Comment of Pinito Parra
    Date Submitted: Friday, May 18, 2012, 10:13 p.m.
    City, State: Torrance, CA
    Occupation: Medical Student
    Comment: We don't need or want artificial foods! We want what is 
grown naturally and are organic! You people in the house committee are 
our watch dogs to make sure we are not only getting food that are safe, 
but are best in quality. You know perfectly well that foods that have 
been altered in some way are not healthy. So foods that are slimed, 
made with preservatives, food coloring, emulsifiers, or bleached need 
not be sold to us. The bottom line is: nature's organic made products 
will lead to a healthy nation.
                                 ______
                                 
                        Comment of Joe Parrette
    Date Submitted: Friday, May 18, 2012, 12:31 p.m.
    City, State: Saco, ME
    Occupation: Engineer
    Comment: Please add a tax to GMO producer products so we can know 
what foods contain GMO's. I call this the Bailey tax. This tax will 
require all foods that contain GMO products to have a tax stamp. Ms. 
Pingree, I know you work hard for your constituents.

Joe.
                                 ______
                                 
                         Comment of Jack Parris
    Date Submitted: Monday, May 07, 2012, 8:32 p.m.
    City, State: Tucson, AZ
    Occupation: Public Relations Manager
    Comment: Please support the farm bill--I see families in need every 
day and we cannot afford to abandon these people who no fault of their 
own need help.
                                 ______
                                 
                        Comment of Michael Parry
    Date Submitted: Friday, May 18, 2012, 2:19 p.m.
    City, State: Holland, PA
    Occupation: Retired Teacher
    Comment: Please restore funding for sustainable agriculture and end 
subsidies for factory farms. America needs organically farmed foods for 
its survival.
                                 ______
                                 
                      Comment of Patricia Parsons
    Date Submitted: Saturday, April 28, 2012, 9:17 a.m.
    City, State: Chicago, IL
    Occupation: Unemployed Accountant
    Comment: I encourage the House Committee on Agriculture to 
strengthen funding for TEFAP, a critical source of emergency food for 
the most vulnerable, and support SNAP in the farm bill. Please oppose 
proposals that would change SNAP's structure or reduce funding, 
restrict eligibility or reduce benefits.
    Thank You.
                                 ______
                                 
                         Comment of Deena Party
    Date Submitted: Friday, May 18, 2012, 3:19 p.m.
    City, State: Oak Park, CA
    Comment: Please Do not cut money from organic farming or from 
nutrition. Cut it from big agricultural companies who could stop 
wasting their excessive lobbying money and invest in their companies so 
us tax payers can put the money where it is truly needed.
                                 ______
                                 
                       Comment of Dorene Pasekoff
    Date Submitted: Wednesday, May 16, 2012, 9:05 a.m.
    City, State: Phoenixville, PA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: As a new farmer, I have really benefited from the Outreach 
and Technical Assistance for Socially Disadvantaged Farmers and 
Ranchers Program--please increase the funding of this program so that 
new farmers such as myself can get the help we need to be successful in 
farming and help feed our communities.
    Speaking of feeding our communities, the following programs should 
be supported as follows:

  <bullet> Community Food Projects Program--$10 million per year to 
        help communities build food self-reliance.

  <bullet> Farmers Market and Local Food Promotion Program--$20 million 
        per year to develop farmers market capacity and create food 
        hubs to connect farmers with schools, hospitals, grocery stores 
        and other markets.(This would help farmers such as myself gain 
        access to institutional markets)

  <bullet> Hunger-Free Community Incentive Grants--An average of $20 
        million per year for a new SNAP local fruit and vegetable 
        incentive grant program at farmers markets and other healthy 
        food retailers.

    Meanwhile, please do not cut SNAP funding--there are too many 
hungry people in Southeastern PA who depend on this funding.
                                 ______
                                 
                      Comment of Richard Pasichnyk
    Date Submitted: Friday, May 11, 2012, 8:35 p.m.
    City, State: Eugene, OR
    Occupation: President of Nonprofit
    Comment: Organic farmers need to be protected from GMO 
contamination. There should be a focus on organic farming as it 
requires less energy expenditure than chemical agriculture, and 
therefore, it has less of a carbon footprint. Also it requires less 
resources, such as those used to produce chemicals (i.e., minerals, 
petroleum, etc.). Therefore, the farm bill should include funding for 
organic farming.
                                 ______
                                 
                       Comment of Dawn Paskowicz
    Date Submitted: Saturday, May 19, 2012, 3:45 p.m.
    City, State: Watton, MI
    Occupation: Retired Teacher, Social Worker
    Comment: The replacing of family farms with agribusiness has turned 
out to be a nightmare. The business has lowered the quality and safety 
of food. The farming chemicals used and the loss of fertile top soil is 
diminishing rapidly under this system. Family farmers are trustworthy 
and willing to work with consumer's preferences. Agribusiness is 
neither.

Dawn Paskowicz.
                                 ______
                                 
                     Comment of James Pasquariello
    Date Submitted: Monday, April 30, 2012, 10:57 a.m.
    City, State: Boston, MA
    Occupation: Executive Director
    Comment: Please protect SNAP. Children's HealthWatch 
(childrenshealthwatch.org) research demonstrates that continuing to 
fund SNAP at the ARRA-stimulus level increases the rate of children 
being well. Heat/eat provisions also make an important difference in 
cash-strapped states that would give people more needed heating 
assistance funding if more were available. Categorical eligibility 
brings SNAP benefits to many populations with high need, while reducing 
administrative costs. SNAP and other family food assistance programs 
are critical investments in our nation's future.
                                 ______
                                 
                       Comment of Joanne Passmore
    Date Submitted: Sunday, May 20, 2012, 12:40 p.m.
    City, State: Allegan, MI
    Occupation: Retired Nurse Aide
    Comment: Please stop with all the genetically made foods and stop 
the pesticides. You are letting other Kill all of us. I try to grow my 
own vegetables and I buy locally from farmers, but Only if they aren't 
using poison on the crops. Organic and true organic foods, nothing with 
pesticides on them . . . Please, you are letting big farms damage us 
and our children, to say nothing of our soil and air.
                                 ______
                                 
                     Comment of JoAnn W. Pasternack
    Date Submitted: Sunday, May 20, 2012, 4:10 p.m.
    City, State: Mendota Heights, MN
    Occupation: Veterinarian
    Comment: Provide sound and robust funding for voluntary 
conservation programs. An investment in farm bill conservation delivers 
positive outcomes that benefit everyone. Protecting soil and enhancing 
water quality are long-term investments in food security and health 
that ultimately act as cost-saving measures as well as an economic 
stimulus. Prioritize the Conservation Title by funding it at the 
current baseline average of $6 billion a year.
    Re-establish the stewardship compact that ensures basic soil and 
water conservation on American farmland receiving farm bill subsidies. 
The Federal crop insurance program has evolved to become the largest 
farm bill subsidy provided to agricultural producers. Subsidizing risk 
can create an incentive for taking serious risks with our natural 
resources. Re-attach the same basic stewardship obligations that apply 
to other farm bill subsidies (provisions known as ``Conservation 
Compliance'') to combat unintended destructive consequences of 
taxpayer-subsidized crop insurance.
    Please also consider sourcing our food donations to needy countries 
in the same geographic area, instead of shipping American grains, etc. 
half-way across the world, which is wasteful and inefficient.
            Thank you,

JoAnn W. Pasternack.
                                 ______
                                 
                       Comment of Susan S. Pastin
    Date Submitted: Saturday, May 19, 2012, 4:45 p.m.
    City, State: Chicago, IL
    Occupation: Knowledge Worker
    Comment: Will You Please Stop Undermining Our Nation? We need a 
farm bill that promotes organic and sustainable agriculture. We need 
enough Food Stamps funding that no child goes hungry. What we do Not 
need is subsidies to huge agribusiness interests! Do that and you'll 
prove any talk about fiscal responsibility is fraudulent on your part!
                                 ______
                                 
                         Comment of Greg Patent
    Date Submitted: Friday, May 18, 2012, 10:53 a.m.
    City, State: Missoula, MT
    Occupation: Writer
    Comment: The food farm bill should have as its top priority a 
system to produce healthful, organically grown food for the entire U.S. 
population. End the corn subsidy which drains enormous funds for a crop 
of dubious value.
                                 ______
                                 
                       Comment of Angela Patnode
    Date Submitted: Monday, May 14, 2012, 10:37 a.m.
    City, State: Madison, WI
    Occupation: Engineer
    Comment: I support organic farming, local, small-scale, and start-
up farming, and land, air, and water conservation. I want a farm bill 
that includes financial and policy support for chemical-free 
agriculture and environmental stewardship. Thank you.
                                 ______
                                 
                       Comment of Cynthia Patrick
    Date Submitted: Friday, April 13, 2012, 5:29 p.m.
    City, State: Albuquerque, NM
    Occupation: Special Education Teacher
    Comment: I am a Special Education Teacher in a Title I school. 100% 
of our students receive free breakfast and lunch at our school. Many of 
my students do not have enough food in their homes.
    As a staff we donate food for food baskets to some of our more 
hungry students for holiday breaks. My take-home pay has decreased so 
much in the last 5 years, that I couldn't afford to help this year.
    Before Winter Break, I called CYFD about a family because I was 
concerned that the kids would not eat during that 17 days.
    It is really hard in these economic times for more and more 
families. Please give as much money as you can to these programs that 
help our most needy children.
    We don't want other world leading countries to start sending money 
to our starving children right here in the United States of America!
            Thank you,

Cynthia Patrick.
                                 ______
                                 
                      Comment of Donnyl Patterson
    Date Submitted: Saturday, May 19, 2012, 12:33 p.m.
    City, State: Augusta, GA
    Occupation: Retired
    Comment: Do not cut funding for the vital programs such as 
nutrition, conservation and support for organic and sustainable 
agriculture. This is vital for all people including yourselves. You 
have been elected to represent the people!
                                 ______
                                 
                       Comment of Jona Patterson
    Date Submitted: Friday, May 18, 2012, 10:53 p.m.
    City, State: Washougal, WA
    Occupation: Teacher and Clean Food Advocate
    Comment: The time has come to level the playing field for Big Ag 
and the regular farmers who started this industry.
    It's time to get rid of the subsidies that are no longer needed. 
Big Ag is doing just fine on its own. If anyone needs subsidies, it's 
small community-based farmers who are trying to eke out a living by 
tending the land, the crops that grow in it and the animals that graze 
on it. These farmers are the true heroes of our times. The ones who are 
still in this business even when their rights are being infringed upon 
through corporate bureaucracy and unfair rules, designed to make them 
fail or become so infuriated or fed up that they want to quit. We need 
these farmers who are committed to providing healthy, clean food to the 
growing population that is demanding that farming ``get back to its 
roots.''
    There is a very large contingent of people who are beyond 
frustrated with the direction our food system is going. We need a turn-
around. Much has been said about Americans becoming some of the most 
overweight, most unhealthy and most sick people on Earth. Is that 
really how we want to represent our country? Weight and health are 
influenced by many factors, but the most important factors involve food 
and activity. It is common sense to understand that healthy food 
choices and an active lifestyle lead to healthy people who do not 
require medications for an array of weight-induced issues or medical 
services that are already strained. Small, community-based farmers need 
to be given the opportunity and support to grow organic, healthy food, 
keeping money in the local community, keeping the environment cleaner, 
keeping food options sustainable, and keeping people healthier. They 
can't do that the way the system is set up now.
    I fully endorse all of the provisions of the Local Foods, Farms and 
Jobs Act (H.R. 3286).
    I fully support funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I fully back the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    And I demand maintenance of the EQIP Organic Initiative.
    Profits and personal gain, which is what our current food system is 
based on, do not buy health or longevity. Nor do they equal a clear 
conscience. Get rid of Big Ag subsidies, support the programs which 
seek to do good in this country, and get America back on track, for the 
sake of our future.
    Thank you.
                                 ______
                                 
                       Comment of Skye Patterson
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Lovettsville, VA
    Occupation: Retired
    Comment: Healthy, organic, Non-GMO foods are very important to me. 
We cannot sustain the practices of commercial farms. And our world 
cannot survive GMO crops . . . they are poisoning our Earth and our 
bodies. Congress needs to step up and educate themselves--they are too 
deep in the ``pockets'' of commercial farming and all their propaganda.
                                 ______
                                 
                        Comment of Erik Pattison
    Date Submitted: Friday, May 18, 2012, 7:39 p.m.
    City, State: Portland, OR
    Occupation: Information and Referral
    Comment: I support the movement to local food providers and believe 
it is of the utmost importance that we support these vital local 
community resources. Not only does this movement provide the community 
with jobs and relationships but it feels like the real American way! 
This farm bill needs to support the sustainable future and not the 
massive agribusiness that has dominated our food policy for so long. As 
a young man thinking (and very doubtful/worried) about the future and 
starting a family I hope that my FDA, USDA and government can stop 
regurgitating our tax money into the hands of massive companies and 
begin supporting the little people.
    I would like to ask for:

  <bullet> The full edorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I would like to ask for this in solidarity with the many groups 
that consistently fight for the rights our grandparents had and we have 
lost.
                                 ______
                                 
                        Comment of Chris Patton
    Date Submitted: Friday, May 18, 2012, 8:16 a.m.
    City, State: Minneapolis, MN
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: At 62 I cannot retire, so I have borrowed money to start a 
new business in farming specialty berries and marketing products 
produced from them. My grandfather lost his farm in 1929, and I am 
trying to get one back into the family, though much smaller. Capital 
assistance at start-up is crucial and creates many more jobs than 
unemployment extensions. Pleas support the new farmer and organic 
farming initiatives--especially those through NRCS.
                                 ______
                                 
                       Comment of Marlene Patton
    Date Submitted: Friday, May 18, 2012, 1:07 p.m.
    City, State: Woodbridge, VA
    Occupation: Trainer of Property Software Systems
    Comment: Locally grown organic foods are so important to me and my 
family. I am a young professional and I lost both of my parents too 
early to cardiac disease and cancer. We decided as a family to try to 
reduce the amount of toxicity in the foods we eat. Local farms allow us 
to do that. We don't just want healthier food for us. We want it for 
the whole community! Please use your congressional power to help us 
keep farmers markets and local farms alive. Thank you so much for your 
help.
                                 ______
                                 
                        Comment of Robert Patton
    Date Submitted: Friday, May 18, 2012, 11:18 p.m.
    City, State: Louisville, KY
    Comment: It would be so refreshing to see our elected officials to 
start voting on issues that are Good for the country and stop voting on 
what is best for the party.
    Are you listening John Yarmuth?
    What Is At Stake?  In 1985, American taxpayers and farmers entered 
into a compact to provide a safety net for the country's food producers 
in return for protection of critical natural resources. Known as 
``conservation compliance,'' this policy requires farmers to follow 
conservation plans that limit soil erosion on highly erodible land as 
well as preventing destruction of wetlands and native grasslands. 
Farmers who willfully violate their conservation plans risk losing 
taxpayer funded benefits.
    Today, this important connection is at risk. Taxpayer-funded 
subsidies for crop insurance are not currently linked to conservation 
compliance as they once were. In the current farm bill debate, Congress 
is considering eliminating Direct Payments, the major subsidy program 
that is linked to conservation compliance, and move some of those funds 
to support increased subsidies for crop insurance, which currently 
lacks compliance requirements. Unless Congress connects crop insurance 
subsidies to conservation compliance, a significant part of farmers' 
incentive to follow conservation plans will disappear this year.
    In order to ensure that the agricultural safety net works in 
harmony with conservation programs and responsible land uses, 
conservation compliance provisions must be strengthened and enforced.
                                 ______
                                 
                       Comment of Morgaine Pauker
    Date Submitted: Friday, May 18, 2012, 5:37 p.m.
    City, State: Westport, CT
    Occupation: Parent
    Comment: In order to meet the serious challenges of the 21st 
century, U.S. agricultural policy the farm bill must shift its focus 
from creating cheap commodities and artificially propping up income for 
farmers, toward implementing the best agricultural practices for 
sustainable and organic production methods.
    Too much of mainstream agriculture has focused on an increasing 
reliance on chemicals and biotech engineered seeds. The people don't 
want this laboratory food evidenced by the majority of the public who 
want GMO food labeled.
    If Congress and the current Administration are serious about the 
health of America's citizens, our environment and the economic 
viability of independently owned family farms, they will support 
organic farming and sustainable agriculture not big business because of 
their lobbying power.
    Let's implement a $25 billion plan to transition to organic food 
and farming production, to make sure that 75 percent of U.S. farms are 
U.S.D.A. organic certified by 2025.

  <bullet> Create school farms and feed organic food to all children 
        enrolled in public school lunch programs by the year 2020.

  <bullet> Pass a Beginning Farmer and Rancher Bill to place a million 
        new farmers on the land by 2020.

  <bullet> Link conservation compliance with government-subsidized 
        insurance programs and create a cutoff so each farm receives 
        government funds for land only up to 1,000 acres.

    The implementation of these proposals will ensure that our nation's 
children are fed the healthiest meals, our environment is preserved for 
future generations and farmers make a sustainable living.
                                 ______
                                 
                        Comment of Diana Pauksta
    Date Submitted: Sunday, May 20, 2012, 8:34 p.m.
    City, State: Warner Robins, GA
    Occupation: USAF Program Manager
    Comment: I fully support and urge you to support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    This is supposed to be a capitalist democratic society, is it not? 
Only by allowing citizens to know and have a part in where their food 
comes from, as well as giving them their God-given right to choose what 
they eat and thus put in their bodies, will we ever move past the 
hypocrisy that plagues our Government now. Congress has no approval 
now, and it's because the electorate feels that you have all sold out 
to the highest bidder. Please do the right thing and support food 
quality and public health. Thank you.
                                 ______
                                 
                        Comment of Brittany Paul
    Date Submitted: Friday, March 30, 2012, 7:27 p.m.
    City, State: Fayetteville, AR
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I'm a small farmer getting an online degree in 
environmental law and policy and am concerned about the privatization 
of our food systems. In order to ensure that we have a diversified food 
market and maintain our local economies, we must take measures to do so 
through this bill. You need to be supporting the Local Farms, Food, and 
Jobs Act, the Beginning Farmer and Rancher Opportunity Act and 
conservation programs (especially research for seed-saving/heirloom/
climate-change resistant crops!).

  <bullet> Farmers depend on quality, cutting-edge research to stay 
        successful--how will the farm bill invest in this crucial work?

  <bullet> Working lands conservation programs help farmers maintain 
        productivity while protecting our air, water, and soil. Will 
        you protect these programs from unfair funding cuts?
                                 ______
                                 
                         Comment of Cherie Paul
    Date Submitted: Friday, May 18, 2012, 2:06 p.m.
    City, State: Houston, TX
    Occupation: Clothing Designer
    Comment: Please:

  <bullet> Don't let Congress cut $4 million from organic research 
        funding and cut in half funding to support Beginning Farmers.

  <bullet> Support in every way possible true Organic farming 
        practices, farmers and labeling

  <bullet> The Labeling Of All GMO content foods--All! We know Monsanto 
        is buying everyone off in their global domination efforts--
        don't let them! It's BAD for business, people and the economy 
        long-term.

    Thank you!

Cherie Paul.
                                 ______
                                 
                        Comment of Rosalie Paul
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Georgetown, ME
    Occupation: Retired Teacher
    Comment: We need to focus on sustainable practices around food 
production and marketing. We need to stop GMO's, promote organics and 
permaculture, and avoid all chemicals that pollute the soil, the water 
table, the air and the food itself.
                                 ______
                                 
                       Comment of Stephen Pauley
    Date Submitted: Friday, May 11, 2012, 2:21 p.m.
    City, State: Ketchum, ID
    Occupation: Retired
    Comment: I oppose CAFO's--beef and poultry industries. Manure is 
entering the water tables. Hormones and antibiotics are in the water 
that becomes drinking water for humans. I oppose fracking that allows 
chemicals into water tables. I oppose the massive subsidies that go to 
corn growers who grow corn to make high fructose corn syrup that is the 
primary cause of obesity. Why subsidize illnesses like diabetes and 
heart disease? We're killing Americans with farm subsidies like these. 
I favor aggressive testing of water supplies for cities. We must test 
for All chemicals in the water. I think that autism and birth defects 
can be traced to such contamination, but only if we test for All 
chemicals--drugs, hormones, etc. The public's health is more important 
that the farm vote. I oppose all big AG PAC contributions to 
politicians. Please work for the public, not for your re-election.
                                 ______
                                 
                        Comment of Deborah Pauls
    Date Submitted: Friday, May 18, 2012, 1:57 p.m.
    City, State: Stamford, CT
    Occupation: Social Worker
    Comment: There are two aspects of the farm bill that I am concerned 
about. I want support for the poor and unemployed to continue in the 
form of Food Stamps, school lunches and the various programs that 
support the well being of the most vulnerable among us. I also want to 
support programs that encourage eating locally such as CSA's and small 
farmers. I am very concerned for the poor quality food that is being 
produced by agribusiness and typically the beginning of over-processed 
foods that are expensive and unhealthy.
                                 ______
                                 
                        Comment of Jerry Paulson
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Caledonia, IL
    Producer/Non-producer: Producer
    Type: Field Crops, Greenhouse/nursery
    Size: Less than 50 acres
    Comment: Please support the funding levels for Agricultural land 
easements in the Senate bill, and restore the existing match formula 
for the FRPP to encourage bargain sales and allow waivers of the match 
requirements for strategic projects.
                                 ______
                                 
                       Comment of Laura Pawlacyk
    Date Submitted: Sunday, May 20, 2012, 9:51 a.m.
    City, State: Minneapolis, MN
    Occupation: Professional Fire Fighter/EMT
    Comment: I am a full believer in organic, sustainable, local 
agriculture. I harvest wild rice in the state of MN, I also have been 
making real maple syrup from real maple trees every spring for the past 
18 years. I grow some of my own food in my own garden. I shop at local 
farmers markets all summer. I want to buy healthy, non-GMO food Every 
time I shop.
    I fully endorse all provisions of the Local Foods, Farms and Jobs 
Act (H.R.3286). I believe in small farmers, small farms, producing 
healthy food without the use of environmentally damaging chemicals. I 
am asking you to maintain the EQIP Organic Initiative and fully fund 
conservation programs and make sure that enrollment in any new 
insurance subsidies are tied directly to compliance with conservation 
programs. I ask you to implement all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    This land that we live on is a gift to us and it needs to be 
respected. We need to honor and protect the Earth for future 
generations. We also need to allow small farmers the opportunity to 
grow and earn a living from their produce and animals.
            Respectfully submitted,

Laura Pawlacyk.
                                 ______
                                 
                       Comment of Dr. Jack Paxton
    Date Submitted: Thursday, May 17, 2012, 1:40 p.m.
    City, State: Urbana, IL
    Occupation: Professor University of Illinois
    Comment: I did research in Agriculture for 32 years at the 
University of Illinois. During that time I was dismayed that no 
progress was made in creating a sustainable agriculture system for our 
vulnerable food system. It is now time to revive LISA and create a 
truly sustainable food production system that addresses the multiple 
problems created by our present Ag system. I am aware of the intensive 
lobbying by Agribusiness that works against this effort. Our survival, 
in my humble opinion, depends on weaning Congress from the corrosive 
effects of special interests guiding important policy decisions.
            Sincerely,

Dr. Jack Paxton.
                                 ______
                                 
                       Comment of Laramie Paxton
    Date Submitted: Sunday, May 20, 2012, 2:22 a.m.
    City, State: Trinidad, CA
    Occupation: Educator
    Comment: As an organic, local, and sustainable agriculture 
supporter, I am writing to voice my concern regarding the influence of 
large-scale, corporate agriculture to the detriment of healthy food, 
land, air, and waterways and independent local farms. Therefore, please 
ensure that this year's farm bill includes the full endorsement of all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286) and 
requires conservation program fulfillment and compliance for any 
insurance subsidies programs. There can be no such thing as free money 
for irresponsible agricultural practices.
    Furthermore, it is essential that America feed its people and not 
turn away starving citizens in exchange for protected profits through 
generous subsidies to large corporate agriculture. Please investigate 
splitting the necessary spending reductions equally between crop/
insurance subsidies and safety net programs like WIC/food stamps.
    Please support the implementation of all provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236) as well, and 
perhaps most importantly, maintain the EQIP Organic Initiative in order 
to provide long term research and sustainable alternatives in 
agricultural practices that replenish and nurture the land, people and 
waterways, as opposed to damaging and poisoning them with reckless soil 
management and dangerous chemicals.
                                 ______
                                 
                         Comment of Carol Payne
    Date Submitted: Friday, May 18, 2012, 2:13 p.m.
    City, State: Hot Springs Village, AR
    Occupation: Artist
    Comment: Please, please vote for everything that protects our food 
supply and our choices of food--even as far as choosing raw milk. Let 
us keep our freedoms and quit telling us that you know best. This also 
includes marking GMO products and choosing not to have our children 
stuck 35 or so times with what are really untested vaccines.
    Think about your own children ingesting all those chemicals and 
pesticides.
            Sincerely,

Carol Payne.
                                 ______
                                 
                          Comment of Lia Payne
    Date Submitted: Friday, May 18, 2012, 3:31 p.m.
    City, State: Missoula, MT
    Occupation: Elementary Teacher
    Comment: Dear Representatives of the people of the United States,

    In your crafting of the farm bill, please maintain the EQIP Organic 
Initiative and endorse all provisions of the local Foods, Farms, and 
Jobs Act (H.R. 3236). In addition, please fully fund conservation 
programs such as the Conservation Stewardship Program, making sure that 
enrollment in any new insurance subsidies is directly tied to 
compliance with such conservation programs. Additionally, please 
implement all provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236).
    We want the farm bill to represent the well-being of the people of 
this nation, assuring healthy food, the ability of small and new 
farmers to make a living by farming, the preservation of our nation's 
soil, its waters, its wildlife, and the genetic diversity of its 
agricultural and natural resources.
            Thank you,

Lia Payne.
                                 ______
                                 
                         Comment of Colleen Pea
    Date Submitted: Friday, May 18, 2012, 1:31 p.m.
    City, State: Indianapolis, IN
    Occupation: Legal Secretary
    Comment: It is past time that the government stop using taxpayers 
hard earned money to subsidize GMOs. The scientific evidence concerning 
GMOs clearly demonstrates the health concerns presented by these 
``innovative'' and irresponsible means of production. Organic farming 
is better for the consumer And better for the environment. It is 
unethical that real, pesticide free, organic produce suffer such a 
mark-up at the market and is hardly available. People are realizing 
that organic goods are what they need and want but, often times, cannot 
afford. Provide farmers an incentive to go organic; to lower greenhouse 
gases; to stop killing bees and butterflies; to stop assisting in 
creating super bacteria and pesticide-immune insects and so on. Stop 
poisoning the population by injecting inexpensive foods with 
subsidized, GMO corn. Take responsibility for the obesity epidemic in 
America. Exercise some foresight in crop production so that the 
longevity of the Earth's fertility can span beyond just the end of your 
lifespan. Get out of bed with big agricultural business. Stop heading 
the FDA and USDA with former Monsanto lobbyists and affiliates. 
Encourage food producers to practice ecologically responsible and 
ethical farming. Growth hormones and antibiotics are Huge contributors 
to disease in the United States. There truly is a simple solution to so 
many health and environmental issues in this nation: Organic Farming. 
Make this farm bill reform part of your legacy. Regain worldwide 
respect. I plead with you insistently, please support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Sue Peachey
    Date Submitted: Monday, April 23, 2012, 2:32 p.m.
    City, State: Pratt, KS
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: A good argument can be made that since the crop insurance 
program will serve as the foundation for the 2012 Farm Bill and beyond, 
that foundation should be strengthened, not weakened. As we have heard 
over and over from bankers, producers, agents, and also every Ag 
related business, do no further harm to the crop insurance program. 
After the devastating year that we just lived through, it is evident 
that crop insurance works and works well. The Congress did not hear 
thousands of calls for a disaster assistance program because their crop 
policy is working well for the farmer and with the banker for the 
operating loan collateral today for the producer to stay in business 
again this year.
    We as agents and as companies have given over $12 billion in cuts 
to our program since the 2008 farm bill and thru the SRA agreement last 
year. We have given our fair share from the Ag business community. We 
also believe in being fiscally sound and under the magnitude of the 
budget crisis in this country, we are not the big ticket item in the 
farm bill. SNAP are food stamps program makes up the largest part of 
the budget and everyone should be giving at the table. We do believe in 
helping the children and families in our country that truly need the 
assistance. Why should farmers and the rural communities always be the 
only place that Congress is looking to cut? We know a lot of urban 
people do not find the farm bill discussions important but this country 
has always had an abundance of food and farmers and ranchers are the 
reason that it is possible in our country.
    As a person who has always been involved in farming as a child 
growing up on a farm, to being a landowner and wife of a farmer today 
and also as a crop insurance agent since 1988, we do understand we are 
in difficult times but don't ruin what works. We work hard as insurance 
agents and are 24/7 to our producers to help with all aspects of their 
risk management decisions. We are their trusted choice and the 2012 
farm bill should continue to utilize the experience and expertise of 
independent insurance agents that are the small businesses in all the 
small rural communities in Kansas and across the United States. FSA 
(Nascoe union) had the program in the past and it did not work and at a 
higher price than what we were paid to take over the public-private 
government program. This past year we had the largest amount of acres 
ever covered with the MPCI programs. Waiting until 2013 will only 
increase pressure to slash spending and lower our baseline for the farm 
bill. Please take action this session and remember the Ag community is 
not the only group at the table.
    Thank you for the consideration.

Sue Peachey,
Insurance Agent and Farmer,
Pratt KS.
                                 ______
                                 
                      Comment of Hannah Pealstrom
    Date Submitted: Friday, May 18, 2012, 11:13 a.m.
    City, State: Bellingham, WA
    Occupation: Student
    Comment: Subsidies are promoting large commodity crops when the 
government needs to be promoting grass roots, organic, small and local 
farming. I frequent my city's farmers market to avoid buying into this 
government run system that is obviously flawed, as millions go hungry 
each day. More resources should be going towards those making 
sustainable efforts in farming, who will keep our ecosystem from 
failing and reduce pollution and pesticide runoff. I feel that the FDA 
and the government are still looking for the cheapest and most 
convenient way of feeding people. With how important food and nutrition 
is to very person's health, this economic way of handling food and food 
sources is grossly elementary and needs to evolve. A lack of promotion 
by the government towards big-agriculture alternatives is hurting local 
farmers who could do so much more with a small amount of government 
help. Stop subsidizing and start caring about making the people in 
United States healthy for many many years.
                                 ______
                                 
                      Comment of Patricia Pearlman
    Date Submitted: Saturday, May 19, 2012, 1:06 p.m.
    City, State: Honaunau, HI
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: We are overdue to demand quality food, as opposed to cheap 
quantity food. Let's get rid of GMO and have proper labeling. And let's 
support our local producers!
                                 ______
                                 
                        Comment of Donna Pearson
    Date Submitted: Wednesday, May 09, 2012, 4:54 p.m.
    City, State: Boston, MA
    Occupation: Disabled
    Comment: Please protect programs like SNAP, TEFAP and CSFP. Do not 
allow any cuts to these programs. Please don't balance the budget on 
the backs of the hungry. Support farm bills such as SNAP, etc.
                                 ______
                                 
                        Comment of Ellen Pearson
    Date Submitted: Saturday, May 19, 2012, 1:59 p.m.
    City, State: N. Bethesda, MD
    Occupation: Housewife/Mom/Volunteer
    Comment: Please make sure the farm subsidies do not go to large 
corporate farms. Small family farms need the support. That's who it's 
for. Not corporations.
                                 ______
                                 
                      Comment of Michelle Pearson
    Date Submitted: Friday, May 18, 2012, 12:10 p.m.
    City, State: Jacksonville, FL
    Occupation: Organic Home Gardener, Housewife
    Comment: Please stop taxpayer subsidization of Big Agriculture, 
which is poisoning us and our children! Locally produced, organic 
family farms are the responsible, sustainable choice for our future. 
Welfare for corporations is a pattern that needs to be stopped. We need 
healthy choices for ALL of our children.
                                 ______
                                 
                         Comment of Rae Pearson
    Date Submitted: Friday, May 18, 2012, 2:49 p.m.
    City, State: Seattle, WA
    Occupation: Retired
    Comment: Please cut subsidies to Big-Ag . . . they don't need them! 
Consider compulsory humane practices and non toxic methods of 
agriculture with lots of oversight! And label all products of GMO 
origin.
                                 ______
                                 
                        Comment of Robyn Pearson
    Date Submitted: Friday, May 18, 2012, 1:22 p.m.
    City, State: Santa Cruz, CA
    Occupation: Website Programmer
    Comment: My father has worked in the farming industry my whole 
life. First running a cotton gin for 35 years then in almonds. I've 
seen small farmers go under. I've seen corporations take over and run 
people off their farms. I've seen excuses for why pesticides are OK and 
then years later backpedaling for poisoning water supplies.
    We need to think of the people involved and all the families who 
are trying to put good food and healthy products onto the tables and 
into the homes of Americans. We need to stop subsidizing factory farms 
which are poisoning our land, water and citizens.
    Make a thoughtful choice.
                                 ______
                                 
                         Comment of Angela Peck
    Date Submitted: Sunday, May 20, 2012, 7:17 p.m.
    City, State: Felton, CA
    Occupation: Skin Care Specialist
    Comment: Food is Medicine--it must be protected with everything in 
our power. Without access to healthy food, we fail as a nation. Most 
Americans don't realize, but are starting to, that we are more than 
what we eat; but more importantly, we are what are food eats--what the 
animals eat and what the soil is fed. This is what organic is--animals 
are fed their natural diets and are out in the sunshine and are treated 
humanely; vegetables & fruit are full of nutrition because the soil in 
which they are grown is nourished rather than stripped with toxic 
pesticides & many other dangerous chemicals.
                                 ______
                                 
                         Comment of Gloria Peck
    Date Submitted: Sunday, May 20, 2012, 8:02 a.m.
    City, State: Golden Valley, MN
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 50-150 acres
    Comment: I live in the city, but my sisters and I own a 
conventional corn farm in Iowa. I believe that our farm policy should 
not lean so heavily on huge production of corn and soy and I am willing 
to see a reduction in my income if it results in a more environmentally 
friendly farm program.
                                 ______
                                 
                         Comment of Kevin Peck
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: Fresno, CA
    Occupation: Community Service
    Comment: Please vote to label all foods correctly. If something is 
GMO, or non natural--it should be clearly labeled on packaging. We 
won't be able to afford the health ramifications of not labeling all 
foods.
            Thank you,

Kevin.
                                 ______
                                 
                      Comment of Victoria Pecoraro
    Date Submitted: Friday, May 18, 2012, 7:35 p.m.
    City, State: Wellfleet, MA
    Producer/Non-producer: Producer
    Type: Poultry/poultry products, Specialty Crops, Vegetables, Other
    Size: Less than 50 acres
    Comment: We as a people and country need a real farm bill that is 
fair and healthy in it's support of organics, local foods and small 
family farms. Organic research funding and funding to support beginning 
farmers is where the future of sustainable agriculture lies. 
Sustainability is the legacy we should be leaving for the generations 
to come. It is imperative that the House Agricultural Committee and 
members of congress recognize that it is time for real reform. As an 
American citizen, organic farmer, mother and wife, I am extremely 
concerned about our country's present and future agricultural 
practices. I fully support maintaining the EQIP Organic Initiative; the 
implementation of all provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236); full funding of conservation programs, 
such as the Conservation Stewardship Program, and insure that all 
insurance subsidies are tied directly to compliance with conservation 
programs; and lastly the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286). Now is the time for 
Congress to truly represent their constituents and fellow Americans.
            Thank you,

Victoria Pecoraro,
10th congressional district,
Wellfleet, MA.
                                 ______
                                 
                         Comment of Donna Peel
    Date Submitted: Thursday, May 10, 2012, 3:18 p.m.
    City, State: Oak Park, IL
    Occupation: Attorney
    Comment: I work at our food bank once a month and, to my surprise, 
have seen two people I know (one of whom works as a lunch room 
supervisor at my son's school) and meet many veterans. I leave so 
humbled and embarrassed that even the working poor and vets need food. 
And try to be callous when children pick out their pasta. Please 
continue to support the poorest among us.
                                 ______
                                 
                         Comment of Randy Peele
    Date Submitted: Friday, May 18, 2012, 9:53 p.m.
    City, State: Seneca, SC
    Occupation: Horticulturist Retired
    Comment: I have been involved with agriculture/horticulture all my 
life of almost 65 years, and I've witnessed all of the various farm 
bills and USDA programs come and go, but now it seems you in government 
are so caught up in trying to keep the players in big agribusiness 
happy that you are oblivious to what's actually happening back home on 
what little farm land is left. Your USDA programs are designed to fit 
the needs and desires of agribusiness, and the rapid dismantling of the 
Extension Service and Land Grant Universities' support of small farmers 
in our communities, has resulted in the loss of much of our local 
``real food'' producers, and left us with these artificial, chemically-
processed foods which totally dominate our American food supply. Even 
those of us who are trying to eat natural foods and maintain a healthy 
lifestyle must search locally for producers or grow our own, because 
you in Washington will not require proper labeling of genetically or 
chemically-modified foods, so that we can know what we're buying at our 
supermarkets. Many of my friends and family here in South Carolina and 
throughout the country would challenge all lawmakers, politicians and 
government officials to remember that you work for the taxpaying 
citizens of this country and not for the corporate giants who seem to 
always have loopholes or subsidies so that they pay little to no taxes, 
and in some cases, actually get refunds, even in years where they show 
substantial profits. We would hope that all of you would take a long 
look at what independent and very credible research shows what the on-
going agricultural system is destroying our topsoil, polluting our air 
and water supplies, disrupting our weather and climatic patterns and 
last, but certainly not least, completely jeopardizing our good health 
and democratic lifestyle guaranteed us by the U.S. Constitution, just 
so these corporations can add to their already bulging profit 
portfolios. There has always come a time in American history when the 
people have realized that their democratic way of life was being 
threatened, and they responded appropriately to keep what those 
generations before us have died to defend. We would like to let all of 
you in Washington know that we are very aware of the threat, and a time 
for appropriate response is now upon us. We're depending on you to work 
for ``us,'' not for ``them.'' We will be watching to see how you 
respond, and In November, we get our chance to respond to you.
            Sincerely,

Randy Peele.
                                 ______
                                 
                       Comment of Patricia Peeler
    Date Submitted: Friday, May 18, 2012, 10:10 p.m.
    City, State: Cordova, AL
    Occupation: Nurse
    Comment: Please support the ``healthy farm bill''. It's past time 
we support good ag practices & healthy non-modified, poison-free foods 
for our families & children. Thank you.
                                 ______
                                 
                          Comment of Joan Peet
    Date Submitted: Friday, May 18, 2012, 6:57 p.m.
    City, State: The Villages, FL
    Occupation: Retired Registered Nurse
    Comment: Please focus on healthy foods--organics and farmers who 
produce foods using soil nurturing methods. We do not need to subsidize 
big agriculture which emphasize GMOs and soy and corn. Including these 
foods in almost everything processed has led to an increase in obesity 
and is not good for our health.
    I am very distressed that President Obama is sending Monsanto to 
help undeveloped countries. It is like sending the fox to the chicken 
coop.
                                 ______
                                 
                        Comment of Robert Pehlke
    Date Submitted: Friday, May 18, 2012, 11:52 a.m.
    City, State: Brookline, MA
    Occupation: Artist
    Comment: Support for organic food is essential for our nation's 
food supply quality and long-term sustainability. The more we learn 
about the use of chemicals in farming, the more it is apparent that we 
need to support organic farming. Please do so!
                                 ______
                                 
                        Comment of Clare Pelkey
    Date Submitted: Friday, May 18, 2012, 3:07 p.m.
    City, State: Windsor, NY
    Occupation: Sister of St. Joseph
    Comment: Agribusiness is not a personal entity. People are in need 
of safe food. It is your responsibility not only to ensure people have 
safe food, but that agribusiness does not corrupt our government.
                                 ______
                                 
                       Comment of John Pelletier
    Date Submitted: Friday, May 18, 2012, 9:22 p.m.
    City, State: Dover, NH
    Producer/Non-producer: Producer
    Type: Fruits, Vegetables
    Size: Less than 50 acres
    Comment: The U.S. Government must support small local agriculture 
that respects the Earth and our health. We must stop the subsidies to 
factory farms and chemical fertilizers. We need a farm bill that 
creates incentives for small farms to start up and continue. We need a 
farm bill that supports local markets and local distribution. I should 
not have to buy a tomato from Mexico when they can be grown in 
greenhouses in the U.S. We need to break up the giant farms which are 
harming this country and bring our food production back to a human 
scale. Congress must act.
    Thank you,

John.
                                 ______
                                 
                       Comment of Joni Pennington
    Date Submitted: Friday, May 18, 2012, 1:07 p.m.
    City, State: Traverse City, MI
    Occupation: Business Manager
    Comment: It is imperative that you protect our small farmers at all 
costs. No more subsidies for big agriculture, especially those using 
GMO seeds destroying land and killing people. Small farmers will save 
our country one day, mark my words. The farm bill Must support the 
family farms!
                                 ______
                                 
                      Comment of Sharla Pennington
    Date Submitted: Tuesday, May 15, 2012, 9:09 p.m.
    City, State: Columbia, PA
    Occupation: Speech-Language Pathologist
    Comment: I think farmers should be encouraged to use organic 
methods of sustainable farming through the use of subsidies and/or tax 
deductions. People deserve to eat healthy, non-toxic food at an 
affordable price. Educate farmers on organic farming methods by 
learning from other farmers who have been successful. Pesticides and 
herbicides are ruining our soil, polluting our water and who knows what 
else! It needs to change now.
            Thank you,

Sharla Pennington.
                                 ______
                                 
                         Comment of Leah Perez
    Date Submitted: Friday, May 18, 2012, 1:25 p.m.
    City, State: Brighton, MA
    Occupation: Student
    Comment: As a social work student, I work with urban, low-income 
families who struggle to put food on their tables, and who often suffer 
from both food insecurity and from obesity and food-related illness. 
Too many Americans are suffering from illnesses relating to poor 
nutrition. It is time for us to take serious steps towards making 
healthy food more accessible to low-income families, and to stop using 
tax dollars to subsidize the production of junk food.
                                 ______
                                 
                         Comment of Lilia Perez
    Date Submitted: Thursday, May 17, 2012, 3:22 p.m.
    City, State: Laredo, TX
    Occupation: Food Pantry Coordinator
    Comment:

May 14, 2012

House Committee on Agriculture
Washington, D.C.

    Dear Chairman Lucas, Ranking Member Peterson, and members of the 
Committee:

    Thank you for the opportunity to provide input on the upcoming farm 
bill reauthorization. Given the increasing need for food assistance in 
our state and the declining supply of Federal commodity support, I 
strongly urge you protect and strengthen nutrition programs in the 2012 
Farm Bill.
    At the South Texas Food Bank, we see every day how important 
Federal nutrition programs are in our community and how effectively 
they are working to ensure that struggling South Texans can provide 
enough food for their families. Currently, the South Texas Food Bank 
serves 700,000 people annually.
    Nationally, the Feeding America network of more than 200 food banks 
has seen a 46 percent increase in food bank clients from 2006 to 2010, 
and we are struggling to keep up with increased demand. Without strong 
farm bill nutrition programs like The Emergency Food Assistance Program 
(TEFAP), the Supplemental Nutrition Assistance Program (SNAP), and the 
Commodity Supplemental Food Program (CFSP), food banks across the 
country would be struggling even more to meet the increased need.
    We recognize the challenge you face drafting a farm bill in a time 
of deficit reduction, but we are also sensitive to the tremendous, 
ongoing need in our state. As such, we have two key priorities for the 
farm bill.
    First, we urge you to strengthen TEFAP to help us keep up with 
increased demand. TEFAP supplies about 25 percent of the food moving 
through Feeding America's national network of food banks. But because 
of strong commodity prices, TEFAP food declined 30 percent last year, 
and our food bank is struggling to make up the difference. We urge you 
to make TEFAP more responsive during times of high need by tying 
increases in mandatory funding to a trigger based on unemployment 
levels. We also propose to enhance the Secretary of Agriculture's 
authority to make TEFAP bonus purchases at times when the need for 
emergency food assistance is high--for example high unemployment--in 
addition to times of weak agriculture markets so that the program can 
respond to both excess supply and excess demand.
    Second, we also strongly urge you to protect SNAP from harmful 
funding cuts or policy proposals that would restrict eligibility or 
reduce benefits. SNAP has responded effectively to growing need in the 
recession with benefits that are timely, targeted, and temporary. The 
average SNAP household has an income of only 57 percent of the Federal 
poverty guideline, and 84 percent of benefits go to households with a 
child, senior, or disabled person. The program is working to support 
vulnerable Texas families, and our food bank or local agency partners 
would not be able to meet the increased need for food assistance if 
SNAP were cut.
    These programs have a real impact on your constituents, many of 
whom must rely on the food bank and Federal nutrition programs to meet 
their basic food needs. I would encourage you to visit the food banks 
serving your district before the Committee marks up a farm bill so you 
can meet our clients and see firsthand how Federal nutrition programs 
are working to protect vulnerable Americans from hunger.
    The South Texas Food Bank believes that feeding our neighbors is a 
shared responsibility, and food banks like ours rely on a variety of 
food streams to support our communities, including generous support 
from partners in retail, manufacturing, and agriculture. However, the 
Federal government is an equally critical partner through programs like 
TEFAP, SNAP, and CSFP, and with tremendous, ongoing need in our state, 
ongoing Federal support is more important than ever.
    As the House Agriculture Committee moves forward with farm bill 
reauthorization, our food bank urges you to protect the nutrition 
safety net and offers the specific recommendations below.
            Sincerely,

Lilia Perez, Coordinator,
Holy Redeemer Food Pantry.
Feeding America Farm Bill Priorities
    The Emergency Food Assistance Program (TEFAP): TEFAP is a means-
tested Federal program that provides food commodities at no cost to 
Americans in need of short-term hunger relief through organizations 
like food banks, pantries, soup kitchens, and emergency shelters. 
Nutritious food commodities provided through TEFAP are an essential 
resource for Feeding America food banks. As the demand for food remains 
high at food banks across the country, a continuous stream of TEFAP is 
necessary for the provision of a steady emergency food supply.

  <bullet> TEFAP commodities account for approximately 25% of the food 
        moving through Feeding America food banks. Food banks combine 
        TEFAP with private donations to maximize TEFAP benefits far 
        beyond the budgeted amount for the program. In this way, food 
        banks exemplify an optimum model of public-private partnership.

  <bullet> TEFAP has a strong impact on the farm economy. According to 
        USDA's Economic Research Service, producers of commodities 
        provided as bonus TEFAP (those purchased by USDA to intervene 
        in weak agricultural markets) receive an estimated 85 cents per 
        dollar of Federal expenditure. Producers of other commodities 
        provided through TEFAP receive about 27 cents per dollar. By 
        contrast, only about 16 of every retail food dollar goes back 
        to the farmer.

  <bullet> Declines in Section 32 funding and strong agriculture 
        markets resulted in a 30% decline in TEFAP purchases during FY 
        2011. This decline is expected to continue in FY2012 as food 
        banks continue struggling to meet increased need. The shortfall 
        between supply and demand will only worsen when the SNAP ARRA 
        benefit boost expires, as many participants turn to food banks 
        to make up for the reduction in benefit levels.

    Farm Bill Priorities for TEFAP:

  <bullet> Make mandatory funding for TEFAP food more responsive to 
        changes in need by providing a trigger that ties funding to 
        unemployment levels

  <bullet> Enhance Secretary of Agriculture's authority to purchase 
        bonus commodities in times of high need for emergency food 
        relief in addition to times of low commodity prices so the 
        program is responsive both to excess supply and excess demand

  <bullet> Reauthorize funding for TEFAP Storage and Distribution Funds 
        at $100 million per year

  <bullet> Reauthorize funding for TEFAP Infrastructure Grants at $15 
        million per year

    Supplemental Nutrition Assistance Program (SNAP): SNAP is the 
cornerstone of the nutrition safety net, providing over 46 million low-
income participants with monthly benefits via a grocery debit card. 
Eligibility is based on household income and assets and is subject to 
work and citizenship requirements. SNAP is one of the most responsive 
safety net programs, expanding quickly to meet rising need during the 
recession. The program is targeted at our most vulnerable; 76% of SNAP 
households contain a child, senior, or disabled member, and 84% of all 
benefits go to these households.

  <bullet> As the number of people unemployed grew 110% from 2007 to 
        2010, SNAP responded with a 53% increase in participation over 
        the same period. As the economy slowly recovers and 
        unemployment begins to fall, SNAP participation and costs too 
        can be expected to decline.

  <bullet> The SNAP accuracy rate of 96.19% (FY10) is an all-time 
        program high. SNAP error rates declined by 61% from FY 1999 to 
        FY2010, from 9.86% to a record low of 3.81%.

  <bullet> SNAP benefits supplement a household's food budget but are 
        insufficient to last most participants through the month, 
        causing many participants to rely regularly on food banks. 
        Among Feeding America food pantry clients receiving SNAP 
        benefits, over \1/2\ (58%) reported having visited a food 
        pantry at least 6 months or more during the prior year.

  <bullet> The average SNAP household has a gross monthly income of 
        $731 and countable resources of $333, consists of 2.2 persons, 
        and participates in the program for 9 months. The average 
        household receives a monthly benefit of $287, or about $1.49 
        per person per meal.

    Farm Bill Priorities for SNAP:

  <bullet> Protect SNAP by opposing proposals to cap or reduce funding, 
        restrict eligibility, reduce benefits, or otherwise impede 
        access or benefit adequacy. Recent proposals to block grant the 
        program would prevent it from responding effectively to 
        fluctuations in need, and efforts to limit broad based 
        categorical eligibility would increase administrative costs and 
        access barriers.

  <bullet> Restore the cut to the SNAP ARRA benefit boost used to pay 
        for the 2010 child nutrition bill and phase out the boost in a 
        way that protects families from a cliff in benefit levels.

  <bullet> Encourage better nutrition by maintaining nutrition 
        education, incentivizing the purchase of healthy foods, and 
        ensuring that retailer standards balance adequate access to 
        stores with access to a range of healthy foods and moderate 
        prices.

  <bullet> Build on SNAP's strong record of integrity and payment 
        accuracy by issuing guidance to states on the eligibility of 
        lottery winners and college students and upgrading resources 
        and technology for trafficking prevention.

    Commodity Supplemental Food Program (CSFP): CSFP leverages 
government buying power to provide nutritious food packages to 
approximately 599,000 low income people each month. Nearly 97 percent 
of program participants are seniors with incomes of less than 130% of 
the poverty line (approximately $14,000 for a senior living alone). 
Currently, 39 states and the District of Columbia participate in CSFP. 
Another 6 states (CT, HI, ID, MD, MA, & RI) have USDA-approved plans, 
but have not yet received appropriations to begin service.

  <bullet> CSFP is an efficient and effective program. While the cost 
        to USDA to purchase commodities for this package of food is 
        about $20 per month, the average retail value of the foods in 
        the package is $50.

  <bullet> CSFP helps to combat the poor health conditions often found 
        in seniors who are experiencing food insecurity and at risk of 
        hunger. CSFP food packages, specifically designed to supplement 
        nutrients typically lacking in participants' diets like 
        protein, iron, and zinc, can play an important role in 
        addressing the nutrition needs of low-income seniors.

  <bullet> Many seniors participating in CSFP are able to have their 
        food boxes delivered directly to their homes or to seniors' 
        centers nearby, an important benefit for those who are 
        homebound, have limited mobility or do not have convenient 
        access to a grocery store.

    Farm Bill Priorities for CSFP:

  <bullet> Transition CSFP to a seniors-only program by phasing out 
        eligibility of women, infants, and children while 
        grandfathering in current participants.
                                 ______
                                 
                        Comments of Martha Perez
    Date Submitted: Friday, April 27, 2012, 2:06 p.m.
    City, State: Portland, OR
    Occupation: General Political Activist
    Comment: I am concerned that food banks are running out of 
resources, due to a growing demand by economically displaced families 
with children, homeless veterans, and other vulnerable groups. Second, 
I am concerned that certain organizations or groups that help to feed 
the poor & hungry, are being harshly penalized for doing so. These 
small community groups are reporting that some people have not eaten in 
as many as 4 days, or more. Third, it is unfair to charge Monsanto 
corporation with the huge responsibility of growing and providing food 
resources for over \1/2\ of the planet's population. It is too taxing, 
and this huge task, needs to be broken down into smaller, localized, 
organic cooperatives, and a restoration of family owned & operated 
farms. I refer to Kraft foods, for doing the right thing, and creating 
subsidiaries, in the way they run business, in order to be more 
sustainable. Fourth, I advocate for more humane methods of raising and 
slaughtering meat products (chicken, beef, fish, etc.) and refer to 
Burger King, for choosing to switch to cage free eggs in their menu 
items. Cage free eggs are far from perfect, but it is a great 
improvement to start with. Fifth, I would like to see CAFO's 
transitioned into smaller units that are more manageable, and green 
friendlier. Sixth, I am concerned that as the price of food increases, 
more people will be susceptible to becoming addicted to pills, 
supplements, and pharmacy O-T-C medications/illegal drugs (when you 
don't eat, you will eat anything). Seventh, I receive SNAP food stamps, 
and want to thank USDA for continuing to provide these amazing 
programs. Take care.
    Date Submitted: Wednesday, May 02, 2012, 7:16 p.m.
    Comment: I worry that as the price of food increases, the drug 
addiction rates will skyrocket, if not already the case. If children do 
not have access to healthy food, they will resort to energy drinks or 
supplements, which is unsafe in my mind. I appreciate your timely 
response to my concerns. Thank you.
                                 ______
                                 
                       Comment of Veronica Perez
    Date Submitted: Wednesday, April 11, 2012, 11:22 a.m.
    City, State: Albuquerque, NM
    Occupation: Counselor
    Comment: Our monthly Roadrunner Food Bank budget is $40.00. Our 
staff members stock up our vehicles with expired produce and dairy and 
free grains to help feed 100 women and their families. Sometimes, this 
is the only food they have. Please keep Roadrunner stocked fully as it 
directly affects the lives of our disempowered downtown community. 
Thank you.
                                 ______
                                 
                       Comment of Joseph Perkins
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Indianapolis, IN
    Occupation: Carpenter
    Comment: How can anyone not see the blatant corruption here. 
Cutting money for natural food production to force mutant foods on 
America. Supporting companies like a Monsanto to pad the pockets of the 
%1. It's shameful the way this country is fueled by greed and excess. 
It's disgusting. Cutting money to honest people trying to make an 
honest living while give breaks and high status positions in government 
to those who don't want people to know what they're putting in their 
mouth. All for more money to support their campaign of lies and empty 
promises. Support organic. Support natural foods. Make a difference for 
the better. Do something for the country not yourself or your fellow 
congress. You're there for us not for yourselves.
                                 ______
                                 
                        Comment of Karen Perkins
    Date Submitted: Sunday, April 22, 2012, 7:03 p.m.
    City, State: Aspinwall, PA
    Occupation: Graphic Design, Marketing Communications
    Comment: I hope government will do its part to make sure all our 
citizens have access to nutritious and healthy foods. Hunger is a 
problem for ALL of us. Failing to support hunger programs will not only 
increase the economic costs of food insecurity and poor nutrition, but 
it will also undercut efforts to reduce poverty and health care 
inequity. Families in our communities are struggling. Please strengthen 
anti-hunger programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization.
                                 ______
                                 
                        Comment of Marie Perkins
    Date Submitted: Thursday, May 17, 2012, 9:36 p.m.
    City, State: Oak Park, IL
    Occupation: Security
    Comment: I would like to see the Federal government stop 
subsidizing ranchers and dairy farms. I think eating meat and consuming 
dairy products are cruel and inhumane and are destroying our 
environment.
                                 ______
                                 
                        Comment of Joe Pernyeszi
    Date Submitted: Friday, May 18, 2012, 2:33 p.m.
    City, State: Gardnerville, NV
    Occupation: Retired
    Comment: I don't want to eat all the insecticides and herbicides so 
we must have an organic farm bill supporting the organic farmers so 
that their fields could remain free of all the harmful chemicals.
                                 ______
                                 
                         Comment of Joseph Pero
    Date Submitted: Friday, May 18, 2012, 9:58 a.m.
    City, State: Asheville, NC
    Occupation: EMT
    Comment: Please encourage food production on a local level. It 
creates jobs and stimulates local economies. Local food production also 
builds communities, which we have gotten out of the habit of 
associating with food. Thank you for your effort to write a bill that 
is fair to all growers, big and small.
                                 ______
                                 
                   Comment of Julien Yannick Perrette
    Date Submitted: Saturday, May 19, 2012, 11:54 p.m.
    City, State: Cambridge, MA
    Occupation: Mental Health Specialist
    Comment: We would like to promote sustainable and organic farms in 
the United States that feed our population with as much regionally 
grown food as possible and continue to grow the number of small and 
medium sized farms. Agriculture in this country should be focused on 
the new generation of young farmers who are looking to farm in an 
ecologically sound way and money needs to be spent on organic research 
as well.
                                 ______
                                 
                      Comment of Claire Perricelli
    Date Submitted: Friday, May 18, 2012, 8:31 p.m.
    City, State: Eureka, CA
    Occupation: Homemaker
    Comment: We need to be supporting small and smaller family farmers, 
especially favoring those who adopt or use sustainable and organic 
methods. We need to eliminate subsidies of agribusiness and corporate 
ag.
                                 ______
                                 
                         Comment of Anne Perrin
    Date Submitted: Friday, May 18, 2012, 12:44 p.m.
    City, State: Salem, VA
    Occupation: Retired Teacher
    Comment: The U.S. farm bill has to include organic farming. Organic 
farming is at the heart of the health of Americans. If the United 
States government is truly interested in the well-being of its 
citizens, it will require the elimination of pesticides and chemicals 
in our foods.
                                 ______
                                 
                        Comment of Nancy Perrine
    Date Submitted: Friday, May 11, 2012, 11:59 a.m.
    City, State: Doylestown, PA
    Occupation: Administrative Assistant
    Comment: Good Morning,

    I come from a long line of home gardeners, ever since my ancestors 
came in the 1600's. I am used to homegrown produce that wasn't 
manipulated with chemicals and big companies.
    I practice organics in both my garden and purchases. It is better 
for all things, health, soil and water runoff, etc. Well maybe the Big 
Chemical companies don't think it's better!
    The problem is that it is very expensive and it is hard to maintain 
this lifestyle. I can pay $2.99 for non organic berries but have to pay 
$4.99 for organic?
    What I want is organic farming, with benefits to the farmers who go 
organic and not to the big farms that pollute all things with 
chemicals. The chemical farms get enough benefits from Big Chemical and 
they don't need the governments help.
    More affordable organic fruits and vegetables and organic farming 
being the norm not the exception.
    Thank you for your time.

Nancy Perrine.
                                 ______
                                 
                         Comment of Heath Perry
    Date Submitted: Sunday, May 20, 2012, 9:29 p.m.
    City, State: Los Angeles, CA
    Occupation: Dietitian, Health Educator
    Comment: Dear House Agriculture Committee,

    I believe we are in a sad state where the burden of proof is put on 
the people showing that the chemicals and genetic modification of our 
foods are harmful, when the burden of proof for safety should be put on 
the corporations that profit from these chemicals and genetic 
modifications. The potential human health and environmental impact of 
patenting seeds that can cross pollinate with natural species and then 
owned by said company is very disheartening. The very sanctity of 
people being able to grow their own food is at risk here. There are 
plenty of scientists, including Dr. Don Huber, who have evidence of 
clear warning signs for major environmental impact of the GMO crops, 
but the current policy is introducing these new engineered `plants' 
into our ecosystem with only the research given from the companies with 
vested interest in these plants as burden of proof. We've seen it many 
times before, when these companies make huge profits from the sale of 
poorly researched chemically/genetically altered foods only later to be 
proven to be cancer causing agents, at which point they just switch to 
the next in a long list of additives or alterations that are great for 
production, price and shelf life, but poor on health. Water and food 
policy needs to be get back to the basics. There is nothing more 
important for our survival than, clean, wholesome organic food. Organic 
farmers should be receiving government subsidies and the industrial 
chemical ``food producers should be paying fees to support independent 
research to prove their efficacy and safety'', not the other way 
around. There are amazing new simple systems that use environmentally-
friendly technology and good old fashioned nature that can compete in 
production with these energy and chemical dominant industrial food 
systems we have now. Aquaponics is just one such example. Please help 
bring back our farm policies to represent what is best for the health 
of our people and the planet. This is one of the most critical issues 
we are facing for our future. Please go forth with the gravity of your 
decision's affect in mind.
    Thank you.
                                 ______
                                 
                         Comment of Linda Perry
    Date Submitted: Saturday, May 19, 2012, 10:13 a.m.
    City, State: Randolph, MN
    Occupation: Retired
    Comment: It's time to cut subsidies (and Insurance) to the big 
corporation farmers--they are doing just fine. We do need stronger 
conservation policies, help or at least not harm for new/small farmers 
and organic versus chemical food producers.
                                 ______
                                 
                        Comment of Nancy Peters
    Date Submitted: Friday, May 18, 2012, 11:19 a.m.
    City, State: Yellow Springs, OH
    Occupation: Massage Therapy
    Comment: Please support the Slow Food USA farm bill principles. 
Those principles support clean air and water, and fair farm practices 
for all--so that we may be healthy, happy and free!
                                 ______
                                 
                       Comment of Haley Petersen
    Date Submitted: Friday, May 18, 2012, 2:17 p.m.
    City, State: New York, NY
    Occupation: Musician
    Comment: I think it is imperative that this country start taking 
responsibility for the health of this country. Corporations need to 
stop taking advantage of the way that this country is run but we all 
know they won't, it's not in their interest. So, it's time for the 
country, which has mostly been left in the dark, to stand up for 
itself. We are going to destroy what our forefathers built for us 
simply because we're too ill or obese to do anything about it.
    We want healthy food. We don't want to be poisoned by the lettuce 
we buy at the grocery store.
    This seems like a no-brainer to me. Why not everyone else?
                                 ______
                                 
                       Comment of Kelly Petersen
    Date Submitted: Wednesday, May 09, 2012, 8:38 p.m.
    City, State: Stoughton, WI
    Comment: Please pass a strong farm bill that protects programs like 
SNAP, TEFAP, and CSFP. We need to make sure that our senior citizens 
(and all people) have enough to eat. Have you ever skipped a meal? 
Imagine if you didn't know where your next meal was coming from. We 
need to take better care of our friends, family, and neighbors.
                                 ______
                                 
                       Comment of Sarah Petersen
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Los Angeles, CA
    Occupation: Multi-Media Environmental Education Producer, Artist, 
Cook
    Comment: As someone whose work has been directly tied to the 
farming and food industry for many years (and whose life ISN'T tied to 
these concerns, I'd like to know!), I support, and urge you to support, 
the following provisions of this year's farm bill:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    The farm bill is one of the major legislative levers for sound 
judgment and stewardship to rule over industry money. Please use it for 
its highest purposes, rather than its lowest.
    Thank you.
                                 ______
                                 
                       Comment of Andrew Peterson
    Date Submitted: Sunday, May 20, 2012, 1:05 a.m.
    City, State: Malibu, CA
    Occupation: Student
    Comment: Organic agriculture is one of the fastest growing sectors 
in America. It's responsible for creating jobs, and providing healthy 
options for consumers. I already eat organic, and as America becomes 
more health conscious the demand will rise. Organic is a buzz term in 
cities and I've already convinced 10 of my friends and several of my 
neighbors to start buying organic produce. A healthy economy is one 
where money flows in an ecosystem between consumer and producer. Keep 
money in Organic Research, give farmers the opportunity to grow their 
business, and I guarantee that the consumers will respond.
                                 ______
                                 
                     Comment of Elizabeth Peterson
    Date Submitted: Thursday, May 17, 2012, 2:28 p.m.
    City, State: Huntsville, AL
    Occupation: Retired
    Comment: We need an agriculture bill that will support the 
increasing use of organic agriculture, give state and local agencies 
flexibility to choose local, healthy foods for their school lunchrooms, 
encourage innovation in farming, protect the environment while 
promoting sustainable farming practices, and encourage a new generation 
to enter farming. Programs to be supported include the Organic 
Agriculture Research and Extension Program, the Conservation 
Stewardship Program, the Value Added Producer Grant Program, and the 
Beginning Farmer and Rancher Development Program. As a consumer and 
home gardener, I appreciate the availability of good, organically grown 
foods and want to see their availability increased.
                                 ______
                                 
                      Comment of Heather Peterson
    Date Submitted: Friday, May 18, 2012, 12:48 p.m.
    City, State: Downers Grove, IL
    Occupation: Homemaker
    Comment: It is increasingly hard to find healthy choices for my 
family. I refuse to by GMO foods as we are the lab rats on that. 
Organic is the best choice and government is getting too involved and 
sticking their nose where it doesn't belong. Organic farming is the way 
of the future.
                                 ______
                                 
                       Comment of Kelly Peterson
    Date Submitted: Sunday, May 20, 2012, 9:50 a.m.
    City, State: Pacific Palisades, CA
    Occupation: Stay-at-Home Mom
    Comment: Please stop subsidizing food that makes people unhealthy 
and start shifting to more generous subsidies of organic food.
    Please stop creating a system that overproduces corn and start 
subsidizing more healthful, green veggies.
                                 ______
                                 
                       Comment of Lauri Peterson
    Date Submitted: Saturday, May 19, 2012, 8:22 a.m.
    City, State: Church Hill, TN
    Occupation: Cook (Small Home Garden)
    Comment: So, you want to cut our deficit? How about going 
department by department and slice the programs that are no longer in 
the best interest of the people. Let's start with ``A''. ``A'' is for 
Agriculture. For many years I've been saying that this is one, if not 
The, biggest waste of taxpayers' dollars. Why can't people just farm? 
Why does the Government need to stomp it's big feet in the soil? Let 
the people drive the market. If you can't produce what the people want, 
then find a career other than farming! Agribusiness' don't need tax 
breaks to make ends meet. If they do not like not receiving the breaks, 
then do something else. I, like Many others, am getting so tired of the 
Government interfering In Everything I say or do.
                                 ______
                                 
                       Comment of Linda Peterson
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Sebastopol, CA
    Occupation: Coordinator of Beginning Farmer/Rancher Training 
Program
    Comment: We need more money to grow more farmers (200,000 new 
farmers needed per Secretary Vilsack). We need support for small farms 
and ranches farming sustainably, including environmentally safe, 
regulatory & permitting processes that are not onerous and expensive 
for small operators, and more funding for regional food system efforts 
(like the efforts currently underway in CA on a state level).
                                 ______
                                 
                       Comment of Linda Peterson
    Date Submitted: Friday, May 18, 2012, 6:11 p.m.
    City, State: Greenville, OH
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock, Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: We need true agriculture needs met. Not mega farmers and 
those ag companies trying to make big money and ruining the environment 
with their costly products. It's time the congress become for us the 
producers and not the big name companies. Organic not only will keep 
our kids healthy but will help with a lot of medical costs and problems 
for others as well. Get government out of where it shouldn't be and let 
the American people do what they know do to keep us healthy.
                                 ______
                                 
                        Comment of Mark Peterson
    Date Submitted: Friday, May 18, 2012, 10:05 a.m.
    City, State: Clementon, NJ
    Occupation: Engineer
    Comment: Promote/incentivize:

  <bullet> Development of digesters on farms/CFOs to produce methane 
        from animal excrement to burn on the farm for heat or power 
        generation.

  <bullet> Re-establishment of family organic or non-organic farms and 
        more farmer's markets.

  <bullet> Healthy food for school lunch and breakfast programs

  <bullet> Healthier and more humane CFOs and reduction of prophylactic 
        use of antibiotics.

    Outlaw suits by Monsanto/Cargill and other GM seed producers 
against farmers whose crops are contaminated with the GM seed/pollen, 
and instead: Promote, through law, the ability of farmers to sue the GM 
seed manufacturers when their crops are contaminated with GM seed/
pollen.
                                 ______
                                 
                       Comment of Ronald Peterson
    Date Submitted: Wednesday, May 09, 2012, 7:11 p.m.
    City, State: Carmichael, CA
    Occupation: Part-Time Retail Employee
    Comment: If it was not for the food that I receive from the SNAP 
program, I would be hurting. For the amount of income from my part-time 
retail job just covers the cost of my health insurance and my monthly 
pension income just covers the my housing cost. If it was not for the 
SNAP program, I would not be eating because I don't have the money to 
buy food.
                                 ______
                                 
                     Comment of Alexander Petruszak
    Date Submitted: Sunday, May 20, 2012, 10:12 p.m.
    City, State: Olympia, WA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. My name is Alexander 
Petruszak and I am a young farmer in the state of Washington. 
Originally coming to Washington from the Midwest, I grew up on the 
south side of Chicago--a food desert. There and in much of Illinois, 
the only available produce is conventional produce grown out of state 
and many-a-times out of this country. It was in my freshmen year of 
college that I realized the dire need for local food production in the 
city that raised me. From then until now, I have been working on small 
Community Supported Agriculture (CSA) vegetable farms. Maple Rock Farm, 
where I currently work, feeds 60 families alone through its CSA program 
which is now in its tenth ongoing year. Farms like this one are needed 
and demanded all over the country but the farm bill often leaves them 
overlooked, neglecting funding for research on and the practice of 
small-scale organic agriculture. Furthermore, the loss of agricultural 
land in the face of urban sprawl has always appeared a major threat to 
farmers. The cost of \1/2\ an acre in Manhattan, IL (45 minutes from 
Chicago) is now easily upwards of $100,000. All of my family is from 
rural northern Illinois, my father grew up across the road from a grain 
farm in Monee, IL. When my father was young, Monee was a town of under 
3,000 people and the sun could be seen setting on the western horizon. 
In my grandmother's words, ``heaven is where that sun reaches the 
horizon.'' In 2004, the same year my grandmother died, the grain farm 
was bought, torn up, and a model home community was built on the 
property. I can no longer see my grandmother's heaven from her house. 
This story is not a singular occurrence, despite the conservation of 
800,000 acres of farmland a year, more than that is lost every year to 
urban sprawl and unsafe farming practices. An area the size of Indiana 
is lost in American topsoil each year. I have relocated to Washington 
so that I could have some opportunity to learn about small scale 
integrated farming, an ideology commonly underrepresented--and 
ridiculed--in highly subsidized Midwest commercial agriculture. What 
the farm bill needs is more attention, support, and funding for 
programs like ATTRA (the National Sustainable Agriculture Information 
Service), Sustainable Agriculture Research and Education (SARE), and 
the Farm and Ranch Lands Protection Program (FRPP). Not only should 
these programs receive heavier support, but it should be acknowledged 
that farming is not merely a commercial interest! The ideal farmer is 
driven by honesty and respect for health, that of the planet, their 
customers and their workers. A farmer Is a civil servant and also 
highly dependent on self funding their business ventures. The farm bill 
should look to forgive student debt of farmers as a means of spreading 
small scale agriculture and ultimately allowing better resource 
management and homeland security across this country. For myself, it 
was the realization that I would be able to farm the day I had as much 
savings as I currently have in school loan debt that forced me to leave 
the classroom. I hope that doesn't continue to be the case. I hope I 
can one day see Illinois vegetables in stores without them being hyper 
processed as food additives. I hope someone in Chicago will have the 
access to agricultural education and nutrition that I nor any of my 
family members ever did. I hope the fact that our food is one of our 
largest political decisions becomes more respected in the years to 
come.
            Sincerely,

Alexander Petruszak.
                                 ______
                                 
                        Comment of Carlene Petty
    Date Submitted: Thursday, May 17, 2012, 2:52 p.m.
    City, State: Shepherdsville, KY
    Occupation: Executive Secretary
    Comment: This year I would like to see a better Food and Farm Bill 
that addresses our agricultural needs. First: we need Healthy food to 
nourish us, which means continuing the VAPGP at $30 million funding but 
designating it Only For Organic Farming Operations--not Agribusiness! 
which means providing schoolchildren with actual food like organic 
fruits, vegetables, and nuts in meals and snacks and eliminating ``pink 
slime,'' and GMO-tainted products from consumption by children! Which 
means continuing the Organic Agriculture Research and Extension 
Initiative at $30 million funding! Which means eliminating subsidies 
for Agribusiness and transferring subsidies to small operations and 
family farms! Second: We need to promote the preservation of nature in 
our agricultural activities, which means full funding for the 
Conservation Stewardship Program! Third: *
---------------------------------------------------------------------------
    * Editor's note: the comment was incomplete as submitted.
---------------------------------------------------------------------------
                                 ______
                                 
                         Comment of Irene Pham
    Date Submitted: Friday, May 18, 2012, 2:18 p.m.
    City, State: Santa Ana, CA
    Occupation: Teacher
    Comment: I want you to align farm policy with our nutrition 
standards and our environmental policies.
    If subsidies and regulations are going to be the business of the 
Federal government, which I am not sure they should, at least they 
should be supporting, not countering, the known science of health and 
disease prevention. And, the long-term productivity of the land and 
water resources should not be endangered by those subsidies and 
regulations. This overall principle, not the welfare of farmers, should 
govern our farm policy.
                                 ______
                                 
                       Comment of William Phelan
    Date Submitted: Wednesday, May 09, 2012, 9:02 p.m.
    City, State: Tallahassee, FL
    Occupation: Physician Assistant
    Comment: Please protect food stamps (SNAP), TEFAP and CSFP in the 
farm bill. People need to eat. Seniors, especially. Don't sell out to 
the ethanol people or the megaproducers. Keep America fed. Protect food 
stamps.
                                 ______
                                 
                       Comment of Benneth Phelps
    Date Submitted: Thursday, May 03, 2012, 4:50 p.m.
    City, State: Easthampton, MA
    Producer/Non-producer: Producer
    Type: Fruits, Poultry/poultry products, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: Please maintain existing conservation agriculture programs 
and funding towards beginning farmer programs.
    The food stamp dollar matching trial programs (3 to 1 match) at 
farmer's markets in our area in our are simple and work well. I would 
love to see food stamp value everywhere matched 3 to 1 at the farmer's 
market.
                                 ______
                                 
                       Comment of Luellen Phelps
    Date Submitted: Sunday, May 20, 2012, 4:19 p.m.
    City, State: Peterson, IA
    Occupation: Assistant Manager Health Food Store
    Comment: Organic farming is very important to me. We must stop 
poisoning the Earth because by doing so we are harming ourselves as 
well as other living things. We must conserve and enrich the soil as 
much like Mother Nature as possible. Present farming methods are not 
sustainable.
                                 ______
                                 
                       Comment of James Phillips
    Date Submitted: Wednesday, April 18, 2012, 11:13 a.m.
    City, State: Crocketts Bluff, AR
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 301-500 acres
    Comment: We urge you to re-instate the Outreach and Assistance for 
our Socially Disadvantaged Farmers and Ranchers Program (2501 program) 
back into the 2012 Farm Bill. This educational program has been very 
helpful to many farmers in our operations with all the USDA Programs.
    Thanks you for your time.
            God Bless,

James Phillips.
                                 ______
                                 
                       Comment of Susan Phillips
    Date Submitted: Friday, May 18, 2012, 2:43 p.m.
    City, State: Cottage Grove, WI
    Occupation: Retired
    Comment: We need a healthy farm bill. We need to support the 
organic farms in our country. We need to stop supporting big 
agriculture. Con-Agra and Monsanto do not need our tax dollars. Small 
farmers do!
                                 ______
                                 
                       Comment of Cynthia Phinney
    Date Submitted: Saturday, May 19, 2012, 2:59 p.m.
    City, State: Livermore Falls, ME
    Occupation: Electric Utility Meter Reader
    Comment: I hope that you will support a farm bill that supports 
family farms, supports organic farming, supports nutritious whole food, 
and encourages the health of the soil, the people, and the environment. 
Increasing evidence ties health issues including obesity, food 
allergies, heart disease and cancer to things like food additives, 
genetically engineered plants, animals raised in feedlots, and 
processed foods. I want my tax dollars to support farmers who are 
caring for the land in a sustainable way and bringing nutritious food 
to the market. I understand that we can't make this change all at once, 
but we need to be steadily moving toward it on many fronts. What the Ag 
Bill supports or doesn't support makes a tremendous difference in what 
people eat, and in whether family farmers can survive. It also makes a 
huge difference in what kinds of foods are available to school children 
and lower income citizens. All of this affects the health of our 
country on many levels.
                                 ______
                                 
                        Comment of Holly Phipps
    Date Submitted: Friday, March 16, 2012, 4:15 p.m.
    City, State: Lake Oswego, OR
    Occupation: Property Management
    Comment: Our food source is in real danger, mostly because the 
independent farmer has been pushed out, bought out by corporations and 
subsidized. Just look at where we are today, it isn't going to get any 
better. Please make this issue a priority.
                                 ______
                                 
                      Comment of JoAnna M. Phipps
    Date Submitted: Friday, May 18, 2012, 1:18 p.m.
    City, State: Grand Rapids, MI
    Occupation: Freelance Proofreader
    Comment: Dear Mr. Amash,

    As a Republican myself and having grown up in rural Michigan on a 
small farm, I have grave concerns over the current system of farm 
subsidies. This system clearly favors huge industrial agricultural 
companies over smaller family farms and produces nothing but inferior, 
perhaps even dangerous, food and fewer job opportunities. Stability and 
safety in the food supply and local economies is best accomplished by 
smaller, and more numerous, local farms. I am not interested in a cheap 
food supply or lining the pockets of huge ag companies. I want to 
ensure access to safe, nutrient dense foods and to support local 
farmers and future farmers to grow them. Therefore I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> And Maintaining the EQIP Organic Initiative.

    I ask you to support these initiatives as well. I believe that true 
and good reform in the agricultural system will carry our country a 
long way toward safety, stability, and economic growth for its 
citizens.
            Sincerely,

JoAnna M. Phipps.
                                 ______
                                 
                        Comment of Leana Phipps
    Date Submitted: Friday, May 18, 2012, 12:35 p.m.
    City, State: New York, NY
    Occupation: Teacher
    Comment: This issue is of the Utmost importance to me and many 
others. I am praying that you will heed the will of the people rather 
than bend to the will of a few lobbyists. Please do the right thing!
                                 ______
                                 
                         Comment of Chad Phyle
    Date Submitted: Friday, May 11, 2012, 9:39 p.m.
    City, State: Aurora, CO
    Occupation: Installation Technician
    Comment: I want to see the FDA get rid of pesticides. There are 
more than enough facts and studies showing extreme negative effects on 
unborn babies. How much is too much when it comes to the future of our 
world and children.
                                 ______
                                 
                     Comment of Sebastiano Picciuca
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Holland, MI
    Occupation: Retired
    Comment: We have been subsidizing corn & sugar for over 40 years. 
Now we are an obese diabetic nation. Corporate industrial mono-crop 
agriculture has depleted the soil and perhaps been responsible for the 
disappearance of the bees. Remember you can't eat money!
                                 ______
                                 
                   Comment of Jana Pickard-Richardson
    Date Submitted: Friday, May 18, 2012, 12:57 p.m.
    City, State: Boston, MA
    Occupation: Teacher
    Comment: It is unconscionable to continue to subsidize corn and soy 
leading to underpriced junk food, while fresh, organic fruits and 
vegetables are out of reach for most working families. This has dire 
health and economic consequences for our nation.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Rebecca Picton
    Date Submitted: Saturday, May 19, 2012, 1:55 a.m.
    City, State: Corvallis, OR
    Occupation: Retail Sales
    Comment: Industrial agriculture is destroying our soils, our water, 
and our small farms and communities. It is time for a different 
paradigm. Subsidies to large agricultural corporations must stop. If 
they are such great businesses, why do they need welfare? Smaller, 
localized producers will also contribute to food security, which is a 
huge issue when only a few corporations control all the seed and 
production.
    There are better ways to guide agriculture than has been done in 
the past decades. Now is the time to create a long-term plan that will 
truly benefit the planet and the people who rely on it.
    Thank you.
                                 ______
                                 
                      Comment of Christine Pieper
    Date Submitted: Friday, May 11, 2012, 10:17 a.m.
    City, State: Vienna, VA
    Occupation: Nonprofit Executive
    Comment: America needs a farm bill that invests in the next 
generation of farmers and ranchers. I grew up on a family farm, and 
both of my brothers remain in the dairy business. Please help young men 
and women like them, who want to farm our nation's food, to get a 
successful start in farming.
    I believe that we need $25 million per year in mandatory funding 
for the Beginning Farmer and Rancher Development Program. We need a 
national strategy and commitment to support beginning farmer and 
ranchers entering agriculture. With an aging farm population, now is 
the time to invest in the future of American agriculture by nurturing 
new agriculture start-ups.
    Thank you.
                                 ______
                                 
                        Comment of Megan Pierce
    Date Submitted: Friday, May 18, 2012, 9:54 p.m.
    City, State: Gays Mills, WI
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: As a small farmer producing medicinal and culinary herbs, 
a farm bill that promotes the viability of small farms is very 
important to me. I ask that you fully endorse all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286), fully fund the 
conservation programs, such as the Conservation Stewardship Program, 
and make sure that enrollment in any new insurance subsidies are tied 
directly to compliance with conservation programs. Please implement all 
of the provisions of the Beginning Farmer and Rancher Opportunity Act 
(H.R. 3236) and maintain the EQIP Organic Initiative.
    Before the industrial revolution, small farmers were the backbone 
of America, providing nourishing, organically grown food for U.S. 
citizens. They are what is needed to bring this country away from the 
health crisis that it is now in, with raising rates of obesity, 
diabetes, and cancers.
    The health of this nation is tied to the health of its' citizens. 
And the health of the citizens rely on their access to healthful food 
grown by farmers of all sizes.
                                 ______
                                 
                       Comment of Dorothy Pierret
    Date Submitted: Friday, April 27, 2012, 2:46 p.m.
    City, State: Maple Grove, MN
    Occupation: Retired
    Comment: It is unacceptable for children to not get good healthy 
food. Either is it for seniors or low income people. Please don't make 
cuts to SNAP or the Farm bill.
                                 ______
                                 
                    Comment of Anna Marie Piersimoni
    Date Submitted: Saturday, May 19, 2012, 2:38 p.m.
    City, State: Los Angeles, CA
    Occupation: Web Development
    Comment: We want to know that the food we are buying is good for 
our families, our communities, and our local farmers and ranchers. 
Strong, fair farm and food policies help make this possible. Now is the 
time to put these new rules into practice.
                                 ______
                                 
                       Comment of Suzanna Pieslak
    Date Submitted: Friday, May 18, 2012, 8:30 p.m.
    City, State: Laurel, MD
    Occupation: Architect and Mom
    Comment: We get weekly deliveries from a CSA and have an Organic 
Farm share all summer. Besides education, I believe that access to 
healthy non-GMO and organic food is the most important issue for our 
children's future. The obesity and type 2 diabetes problem in our 
country is out of control and we need to make healthy food a priority 
again.
                                 ______
                                 
                        Comment of Cheryl Pietro
    Date Submitted: Friday, May 18, 2012, 2:45 p.m.
    City, State: Seattle, WA
    Occupation: Efficiency Consultant
    Comment: We need government that is looking out for our best 
interests. We need to have protection for organic farmers, for grass 
fed, free range and organic farming. We also need protection and 
informed consumption where GMO's are concerned. We want the right to 
eat what is healthy. It is up to everyone, including the 
representatives of this country, to make sure we are all protected.
                                 ______
                                 
                         Comment of Edward Pile
    Date Submitted: Friday, April 27, 2012, 7:36 p.m.
    City, State: Abingdon, VA
    Occupation: Private Industry
    Comment: Southwestern Virginia is afflicted not only by the pain of 
drug abuse, child abuse and neglect, malnutrition, and poor health, it 
is an area where hunger is of pandemic proportions. We need the farm 
bill to bring funds into these communities to buy basic sustenance for 
residents. Please help!
                                 ______
                                 
                        Comment of Killeen Pilon
    Date Submitted: Friday, May 18, 2012, 3:07 p.m.
    City, State: Santa Monica, CA
    Occupation: Retired Social Services Director
    Comment: I have been involved in slow foods and small farms for the 
last 15 years. I am concerned about the direction agriculture in the 
U.S. has taken--GMO, pesticides, eroding of farm land, overplanting, 
abuse of animals raised for food , and subsidies to agri-industry. I 
want my food to be clean, healthy, and tasty.
                                 ______
                                 
                      Comment of Lucille Pincince
    Date Submitted: Saturday, May 19, 2012, 11:54 a.m.
    City, State: Lincolnville, ME
    Occupation: Office Work
    Comment: I fully endorse all provisions of the Local Foods, Farms 
and Jobs Act and support conservation programs that will preserve and 
make farmland affordable, particularly for beginning farmers and 
ranchers.
    I abhor big business's control and destructive use of our soils and 
seeds.
                                 ______
                                 
                        Comment of Melisa Pineda
    Date Submitted: Friday, May 18, 2012, 11:03 p.m.
    City, State: Fremont, CA
    Occupation: Mom
    Comment: The quality of the food we put into our bodies should not 
be so hard to get. We need to get back to basics and nourish our bodies 
without pesticides, toxins, sugars and other substitutes for what we 
can get naturally from our Earth . . . and let's not start on that 
subject, our Earth . . . the green lush lands that are getting covered 
with concrete.
                                 ______
                                 
                       Comment of Damaris Pinedo
    Date Submitted: Friday, May 18, 2012, 1:48 p.m.
    City, State: Rochester, NY
    Occupation: Cytotechnologist and Owner of Organic Juicing Business
    Comment: We need to go back to the basics in what we eat and how we 
farm. Let's work together to regain our land and grow food the way God 
intended.
                                 ______
                                 
                        Comment of Martha Pings
    Date Submitted: Friday, May 18, 2012, 1:25 p.m.
    City, State: Madison, WI
    Occupation: Social Services and Parent
    Comment: The farm bill is our 1-in-5 year chance to aid ``real'' 
farmers--not soy and corn agribusiness. What about promoting farmers 
who raise broccoli, tomatoes, pears, and the rest of our necessary 
diet? It impacts our nation's obesity epidemic, health care costs, and 
quality of life. Agribusiness doesn't need support. Healthful, varied, 
fresh food does.
                                 ______
                                 
                       Comment of Carolyn Pinkham
    Date Submitted: Friday, May 18, 2012, 2:42 p.m.
    City, State: Portland, OR
    Occupation: Retired Social Worker, Homemaker, Volunteer
    Comment: We need to save our country from being victimized by 
politics as usual. We need to dig deep and undo the damaging 
legislative acts that have been done and create new ones that will 
rebalance our system for the benefit of all. This means producing food 
in a way that is most healthful even if it costs more as it will 
benefit health costs . . . invest in new energies to offset future oil 
and gas shortages . . . support our vulnerable peoples so that we 
create a more stable population . . . pay a living wage to all so that 
people don't have to rely on welfare . . . on and on. Bring sensibility 
back into the equation.
                                 ______
                                 
                      Comment of Charlotte Pinsky
    Date Submitted: Friday, May 18, 2012, 8:02 p.m.
    City, State: New Port Richey, FL
    Occupation: Retired
    Comment: Too many lawmakers are depending on Monsanto and corporate 
farms for their information. Go to scientists and real farmers to 
understand nutrition and healthy farming. My grandfather was a dairy 
farmer and lived to be one hundred and 2 years old. I wonder how long 
Monsanto executives and corporate farmer will live. Of course they may 
secretly be eating organic food.
                                 ______
                                 
                       Comment of Matthew Pintar
    Date Submitted: Monday, March 19, 2012, 9:14 p.m.
    City, State: Lubbock, TX
    Occupation: Biologist
    Comment: Our current food system is broken, and it didn't happen by 
accident. It's time for a new farm bill that creates a healthy food 
system. Please support these actions in the next farm bill:

  <bullet> Level the playing field for farmers

  <bullet> Make markets fair for farmers and consumers

  <bullet> Ensure food security by restoring the grain reserve

  <bullet> Make healthy food accessible for all people

  <bullet> Rebuild local infrastructure for regional food systems

  <bullet> Make smart government food purchases

  <bullet> Support new sustainable farming programs

  <bullet> Promote environmental stewardship

  <bullet> Require full safety reviews and labeling of GE foods

  <bullet> Stop subsidizing factory farms and dangerous technologies

    Thank you for your consideration.
                                 ______
                                 
                        Comment of Reynolds Pip
    Date Submitted: Thursday, May 10, 2012, 2:13 a.m.
    City, State: San Francisco, CA
    Occupation: Caretaker/Homemaker
    Comment: What will seniors do if they no longer have access to 
these vital programs? We support SNAP, TEFAP, and CSFP and want them 
protected!
                                 ______
                                 
                    Comment of Amanda Piper-McClure
    Date Submitted: Sunday, May 20, 2012, 8:11 p.m.
    City, State: Idaho Falls, ID
    Occupation: Bookseller
    Comment: I work both in and out of my home. I am a wife and mother 
who cares about local organic farming. Due to the fact that I live in 
Idaho, I have made use of national co-ops such as Bountiful Baskets, in 
order to get better variety and pricing on organic food. Please do not 
make it harder on the local smaller farmers to grow food that is 
healthier for us and sustainable.
                                 ______
                                 
                         Comment of Tony Pisano
    Date Submitted: Friday, May 18, 2012, 1:26 p.m.
    City, State: North Adams, MA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: I believe our food is our future, which means the source 
of our food, the land, must be nurtured and protected. We are finally 
seeing a rise in new young farmers using age old, tried and true 
practices of sustainable agriculture. Big AG practices are not 
sustainable. Now is not the time to cut funding for start-up young 
farmers using organic and naturally grown processes. Please don't let 
the money of big Agriculture lobbyists influence decisions made that 
will affect the lives of your children, grand children and generations 
to come. There is a growing movement to produce healthy food using best 
practices for the welfare of the animals and consumers. This movement 
is the small CSAs, market farms, and local food production and 
consumption.
                                 ______
                                 
                        Comment of Patti Pitcher
    Date Submitted: Friday, May 18, 2012, 10:11 a.m.
    City, State: Snoqualmie, WA
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: We need the farm bill to support small farmers and stop 
subsidies on commodities to level the playing field. Consumers need 
Real food, not GMO enhanced crops that hurt the Earth and its 
inhabitants.
                                 ______
                                 
                        Comment of Cathie Pitts
    Date Submitted: Sunday, May 20, 2012, 1:16 p.m.
    City, State: Buckeye, AZ
    Occupation: Retired
    Comment: Please help regulate our food production. Many diseases 
have been linked to human consumption of harmful chemicals. I try to 
buy organic products when possible, but they are expensive and 
sometimes hard to find (have to drive further, using more gas, etc.). 
Please support organic farmers.
                                 ______
                                 
                        Comment of Judy Pizarro
    Date Submitted: Friday, May 11, 2012, 1:52 p.m.
    City, State: Maple Shade, NJ
    Occupation: Laboratory Worker
    Comment: I would like to see more financial help directed to 
farmers who raise organic foods, and raise animals with humane 
treatment rather than favoring agribusiness giants who run CAFO's and 
factory farming.
                                 ______
                                 
                         Comment of Hope Pjesky
    Date Submitted: Sunday, April 22, 2012, 11:56 p.m.
    City, State: Goltry, OK
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock
    Size: 1,000+ acres
    Comment: My name is Hope Pjesky. My husband Ryan and I are average 
sized full-time farmers/ranchers in northern Oklahoma. We produce wheat 
and beef cattle. We are also fiscal conservatives. Here are my views on 
the next farm bill:

  <bullet> Government farm programs should focus on providing farmers 
        with downside risk protection.

  <bullet> Direct Payments, Counter-cyclical payments, the Marketing 
        Loan Program, ACRE and SURE should be eliminated.

  <bullet> In the future we should rely less on government and 
        increasingly more on free markets.

  <bullet> The best way to spend government dollars is crop insurance 
        and a deep revenue loss safety net program.

  <bullet> Crop insurance coverage should be improved, made less 
        expensive to producers and expanded to include revenue based 
        crop insurance options for all crops.

  <bullet> A catastrophic or ``deep'' revenue loss program such as the 
        one proposed by the American Farm Bureau Federation is the best 
        way to go with future farm programs. This is much better than 
        any of the shallow loss proposals.

  <bullet> All crops should be treated equally in government farm 
        programs.

  <bullet> Planting flexibility should be a priority. A target price 
        program will distort planting decisions and should be opposed.

  <bullet> Farmer Savings Accounts should be created, allowing farmers 
        to create tax free saving accounts on good years for use in 
        later bad years.

  <bullet> Market Access and Foreign Market Development Programs are 
        important trade tools and should receive strong funding.

  <bullet> Agricultural research is vitally important and should 
        receive strong levels of funding.

Hope Pjesky,
[Redacted],
Goltry, OK,
[Redacted].
                                 ______
                                 
                       Comment of Michelle Plain
    Date Submitted: Friday, May 18, 2012, 10:17 a.m.
    City, State: Duncan, WA
    Occupation: Server, Caterer
    Comment: We need to go back to the old way of doing things as 
clearly our chemical world is killing us. GMO and pesticides are 
killing us. That saying don't fix what ain't broke is what are crops 
are today. We have dressed things up and our bodies don't recognize the 
dress! How can you not see this. Is money and drugs that much more 
important? Soon there won't be enough people to feed these horrible 
things to and then all your money won't matter anyway! Please think 
about how simple this can all be and just go back to the basics. Thank 
you.
                                 ______
                                 
                      Comment of Desiree Plaisance
    Date Submitted: Friday, May 18, 2012, 2:54 p.m.
    City, State: New Orleans, LA
    Occupation: Public Records Researcher, Licensed Massage Therapist
    Comment: I am writing in support of organic farming and animal 
husbandry, labeling of GMOs and their exclusion from anything labeled 
organic or all-natural, and the development and maintenance of 
ethically and environmentally sound food practices. This includes:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Monica Plourde
    Date Submitted: Wednesday, May 16, 2012, 5:53 p.m.
    City, State: Biddeford, ME
    Occupation: Homemaker
    Comment: Citizens want and need locally grown--preferably organic--
produce. There should be no such thing as a ``food desert'' and big 
grocery chains aren't the solution to this problem. Urban farms, small 
farms and farmers markets are a real solution to the serious issue of 
malnutrition and hunger in the United States.
    Focusing support on smaller, more diverse, especially organic 
farms, reduces pollution by using less petroleum for pesticides, 
fertilizer, and fuel for transportation. Local farms also let produce 
have a chance to become more nutritious instead of being shipped unripe 
to prevent spoiling over long distances.
    The financial security of smaller farms would create new jobs and 
bring healthier food to everyone's table for an affordable price. The 
problems with obesity and health and the healthcare cost they bring 
with them would be dramatically reduced once it's cheaper to buy 
vegetables than a double cheeseburger.
    Please keep smaller farms, public health and pollution in mind 
while you contemplate the Farm bill.
                                 ______
                                 
                         Comment of Kate Plumb
    Date Submitted: Friday, May 18, 2012, 3:15 p.m.
    City, State: Sag Harbor, NY
    Occupation: Consultant
    Comment: Please take the first step and get on board with a better 
food program for the country--let go of the subsidies for the food that 
is making us sick and start subsidizing the food that makes and keeps 
us healthy.
                                 ______
                                 
                        Comment of Donna Plummer
    Date Submitted: Saturday, May 19, 2012, 7:33 a.m.
    City, State: Harrisburg, PA
    Occupation: Educator
    Comment: I am writing to ask you for full endorsement of all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286).
    Also, I am asking that the farm bill supports funding conservation 
programs, such as the Conservation Stewardship Program, and making sure 
that enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs.
    Also, include the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    And most importantly maintaining the EQIP Organic Initiative. 
Organics don't make people sick. Organics help students with ADD and 
ADHD to calm their hyperactivity.
    As you well know, I have been an advocate of nutrition, since I 
teach this, and want the best for our children and Americans alike. 
Please make fresh produce initiatives in schools mandatory and pizza is 
not a vegetable. It is actually a junk food.
    I am also asking Congress to go a step further by regulating 
government subsidies that enter schools. The food is processed and 
laden with chemicals which affect people. Every time I eat the ice 
cream, I start to cough. I stopped getting it. It also has salicylates 
which are known to affect ADD children. Clean up the foods that are 
given to our students in schools and you will change the behavior 
problems as well as increase test scores.
    Thanks for your time. We'll miss you in Harrisburg office come Nov.
                                 ______
                                 
                       Comment of Felicia Pocius
    Date Submitted: Friday, May 18, 2012, 10:57 p.m.
    City, State: McHenry, IL
    Occupation: Administration
    Comment: The world is beginning the shift to truly organic, non-
chemical, non-franken-farmed produce and meat products. Either we are 
on the bandwagon or we get left behind. Let's choose to be ahead of the 
wave rather than washed up.
                                 ______
                                 
                       Comment of Theresa Podoll
    Date Submitted: Thursday, May 17, 2012, 11:57 p.m.
    City, State: Fullerton, ND
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: 500-999 acres
    Comment: I am an organic farmer and a strong supporter of organic 
farming, I ask that you . . .

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain the EQIP Organic Initiative

  <bullet> And do Not cut the Conservation Stewardship Program.

    Organic farming, food production, and food distribution systems 
produce multiple benefits ecologically, socially, and economically. 
These multiple benefits provide services to our local communities and 
our state much beyond production agriculture, including increasing 
agricultural biodiversity, enhancing soil and water quality, reducing 
pesticide exposure, and increasing native pollinators and beneficial 
insects.
                                 ______
                                 
                    Comment of Margie Pohlschneider
    Date Submitted: Sunday, May 20, 2012, 9:35 a.m.
    City, State: Piqua, OH
    Occupation: Retired
    Comment: I urge you to support the EQIP organic initiative so we 
may have access to healthy food without more damage to our agricultural 
land. The increasing use of GMO crops and pesticides are damaging to us 
and the land.
    Thank you.
                                 ______
                                 
                        Comment of Jeff Pokorny
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Bend, OR
    Occupation: Reseller of Non-Perishable Goods
    Comment: Please support a farm bill that takes the consideration of 
a healthy people and environment in mind. This is critical to sustain a 
high quality of life from now to well into the future.
    Please remember that the primary reason for the scarcity of food is 
the ignorance of how to produce sustainably and efficiently, without 
the use of corporate agriculture and pesticides. It is only through 
ignorance, greed and blatant disregard for the environment that we 
continue to utilize these methods. Let the independent farmer feed 
Americas bodies and souls . . . not Big Ag!
                                 ______
                                 
                       Comment of Martha Poliquin
    Date Submitted: Thursday, April 12, 2012, 5:31 p.m.
    City, State: Lisbon Falls, ME
    Occupation: School Food Service Director
    Comment: The small farm and food producer are the cornerstone of 
Maine's local food movement. Local food and farms are important assets 
here. Schools desperately want access to more local farm food to 
provide healthy nutritious meals to our students. Current commodity 
funds support large farms that are far away from Maine and don't 
support our local economy. Please allow schools to use some commodity 
money to buy locally.
                                 ______
                                 
                        Comment of Lisa Pollard
    Date Submitted: Friday, May 18, 2012, 3:07 p.m.
    City, State: Mokena, IL
    Occupation: Teacher
    Comment: As a teacher and a mother, I stand beside our farmers. 
Farmers are the backbone of our nation--and all civilization. Think 
about where we will be without farmers or with a greatly reduced/
unsupported farming community! I am also a huge supporter of any 
initiative that supports organic farming. We are paying known and yet 
to be known costs for the chemicals we are putting into our food--our 
children deserve a healthy chance.
    I support H.R. 3286 and H.R. 3236. I also support the full funding 
of conservation programs and the EQIP Organic Initiative.
    What we spend in pennies today will save us many, many dollars down 
the road with health care issues, insurance costs, and educational 
reforms to deal with the consequences of substandard food supplies.
    We are a nation of plenty . . . let's stand by the farmers who 
helped us be that way.
                                 ______
                                 
                       Comment of Alaina Pomeroy
    Date Submitted: Friday, May 18, 2012, 6:57 p.m.
    City, State: Portland, OR
    Occupation: Program Associate, Policy, Klamath & Rangelands, 
Sustainable Northwest
    Comment: These comments are submitted on behalf of the Rural Voices 
for Conservation Coalition (RVCC). RVCC is comprised of rural, western, 
regional and national organizations, landowners and businesses that 
have joined together to promote balanced conservation-based approaches 
to the ecological and economic problems facing the West.
Rural Voices for Conservation Coalition Recommendations for Increasing 
        Community Capacity to Deliver Farm Bill Conservation Programs
    Congress must do more than allocate financial assistance to each 
program in the Conservation Title of the farm bill; it must provide 
sufficient technical assistance or `boots on the ground' to help 
farmers, ranchers and forest landowners implement conservation 
practices. Effective delivery of farm bill programs depends on 
partnerships among the USDA Natural Resources Conservation Service 
(NRCS), other Federal agencies, and strong community-based, local and 
regional organizations to provide landowner outreach and education, 
collaboration assistance and landscape scale strategic planning, 
landowner and community skill building, on the ground technical 
assistance, and connection to larger support networks. We refer to this 
as a community's capacity to deliver farm bill and other conservation 
programs.
    In a tight budget environment, it is essential that limited dollars 
are well spent to achieve multiple benefits. NRCS and community-based, 
local and regional organizations must work in coordination to provide 
access to and delivery of programs that help conserve and steward 
farms, ranches and forestlands, ensure long-term ecological health, 
build local economic stability, and enhance productivity and delivery 
of products to market.
    As participants in the Rural Voices for Conservation Coalition 
(RVCC) and partnering land owners, organizations and businesses, we 
strongly support the work of the NRCS and other Federal agencies, and 
stand willing and able to work in partnership with the Department to 
achieve strong and lasting program outcomes.
Key Recommendations to Support and Maintain Capacity for Effective 
        Conservation

    1. Designate collaboration and capacity building outcomes as 
        priority preference criteria for allocation of grants, loans 
        and cost share for partnership programs.

    2. Direct the agencies to increase their use of cooperative, 
        contribution and technical service provider agreements to 
        achieve farm bill program outcomes.

    3. Formalize the role of community-based, local and regional 
        organizations as strategic agency partners in farm bill program 
        delivery.

    4. Direct NRCS to develop and report on performance measures that 
        would allow Congress and the public to fully understand the 
        impact of technical assistance and partnership investments.

    5. Expand NRCS's ability to use Conservation Technical Assistance 
        (CTA) funding to support partnerships between NRCS staff and 
        community-based and regional organizations and other non-
        Federal conservation partners and specialists, and continue to 
        increase CTA funding annual appropriations.

    6. Encourage a higher percentage of program funding be directed to 
        Technical Assistance (TA) and expand its range of use for 
        outreach, collaborative planning, skill building, and increased 
        partnership with community-based, local and regional 
        organizations.

    7. Prioritize funding to programs that support landscape-scale 
        conservation and dedicate funding to the community-based, local 
        and regional organizations that spearhead planning efforts.

    8. Direct a percentage of Regional Conservation Partnership Program 
        funds to capacity building and technical assistance for program 
        implementation partners and organizations.

    9. Establish reimbursements for the transaction costs and services 
        provided by community-based, local and regional organizations 
        that enable landowners to participate in working lands easement 
        programs.

    10. Expand funding for Technical Service Providers (TSPs) and 
        encourage NRCS to simplify the application process, increasing 
        the ability of non-Federal partners, especially community-
        based, locally-led and regional organizations to become a TSP.
Strong Intermediaries Can Provide Essential Functions for Effective 
        Conservation:
    Congress and the agencies can increase the effectiveness of the 
Farm Bill Conservation Title by partnering, engaging and supporting 
community-based, local and regional organizations to fulfill the 
following roles and activities:

  <bullet> Improve outreach, marketing and access to farm bill 
        conservation programs.
      Landowner education is the first step to providing access to farm 
        bill conservation programs. Before a landowner is willing to 
        participate in a voluntary program, he or she must be fully 
        aware of all requirements and incentives, as well as the impact 
        program participation will have on the management of their own 
        property and possibly their neighbor's property. Community-
        based, local and regional organizations and networks are well 
        suited to provide outreach and marketing services to 
        landowners. In fact, there are many organizations across the 
        country already doing this. To improve outreach and marketing, 
        Congress should formalize the roles of community-based, local 
        and regional organizations and increase partnership with and 
        funding to these entities to ensure their success. Congress 
        should direct the agencies to develop performance measures and 
        require reporting on accomplishments related to the use of 
        community-based, local and regional organizations to improve 
        program outreach, marketing and access.
  <bullet> Provide on the ground project-specific technical assistance, 
        including planning, to ensure delivery of conservation programs 
        at the landowner level.
      We need more `boots on the ground' and rural communities have 
        boots to offer. Often, the landowner demand for project-
        specific technical assistance is far greater than the ability 
        to provide such assistance. Congress and the agency must 
        prioritize funding for technical assistance to implement 
        effective conservation and restoration activities (e.g., 
        wetland or riparian restoration project design, change in 
        irrigation delivery, conservation planning, etc.) ensuring the 
        enhancement and protection of our natural resources. To 
        increase `boots on the ground' Congress should encourage the 
        Executive branch to allocate enough funding to support the 
        staff needed to provide technical assistance. This includes 
        technical assistance provided by on the ground agency personnel 
        as well as non-Federal conservation partners and specialists 
        (including biologists, ecologists, foresters and rangeland 
        specialists) who can work with agency staff to assist 
        landowners and managers.
  <bullet> Implement strategic and collaborative conservation planning 
        at a landscape-scale.
      Landscape-scale conservation planning and implementation is an 
        efficient and comprehensive means to protect the productivity 
        of multiple natural resources, recognize relationships between 
        ecological processes within a landscape, and incorporate 
        multiple stakeholders into decision-making processes. 
        Community-based, local and regional groups are critical to 
        building agreement among stakeholders around land management 
        and economic development goals. They reach agreement through 
        community and landowner engagement, collaborative planning 
        processes, and the use of pilot projects and facilitated 
        dialogue to build trust before scaling up efforts. Congress 
        should prioritize and fund programs that support landscape-
        scale conservation and dedicate funding to the community-based, 
        local and regional organizations that spearhead these planning 
        efforts.
  <bullet> Build and strengthen networks of landowners and community-
        based, local and regional organizations to advance effective 
        program outreach, planning and implementation.
      Networks promote the use and effectiveness of conservation 
        programs by catalyzing landowner outreach and education and 
        providing access to `boots on the ground' technical assistance. 
        They help advance the learning and problem solving needed for 
        effective program design and implementation. It is through 
        these networks that many landowners learn about the mechanics 
        of farm bill programs, get connected with technical assistance 
        providers and resources, and share their experiences. Congress 
        should support existing networks of community-based, local and 
        regional organizations (including general operations and 
        staffing) that undertake many of the activities listed above.
  <bullet> Provide the organizational infrastructure needed to staff 
        and organize collaboration, community and landowner engagement, 
        and conservation project planning and implementation.
      Strong and stable community-based, local and regional 
        organizations are essential to farm bill program delivery. 
        Supporting organizational infrastructure means building strong 
        foundations for community-based organizations, intermediary 
        groups and networks by providing small amounts of tailored 
        financial and technical assistance to promote `back of office' 
        systems and processes that lead to effective, efficient, and 
        lasting organizations. These are essential functions such as 
        financial management systems, strategic planning, human 
        resources, communications tools and other elements that 
        underpin effective organizations. Congress should support the 
        organizational infrastructure needs of these community-based 
        organizations, as they relate to farm bill conservation 
        programs.
  <bullet> Provide educational and skill building opportunities for 
        technical assistance providers and recipients.
      Community-based, local and regional organizations provide 
        trainings and workshops to improve the skills and knowledge of 
        local landowners and groups. Farm bill conservation programs 
        will reach more landowners and produce better long-term results 
        if Congress allocates funding for education and skill building 
        opportunities in areas such as sustainable grazing systems, 
        ecological function and monitoring, effective conflict 
        resolution, financial management and grant-writing. Congress 
        can also provide funding for peer to peer learning among 
        community leaders, organizations and practitioners to 
        facilitate the transfer of successful models between 
        communities in different regions of the country.
Farm Bill Conservation Program Delivery is Provided by a Wide Array of 
        Entities
    Many different types of organizations and individuals work with 
Federal agencies to support delivery of farm bill conservation 
programs. The farm bill should allocate funding to grow and maintain 
the capacity of these entities. They vary by region and type of 
landowner, but may include:

  <bullet> Community-based locally-led or regional organizations,

  <bullet> Landowner organizations,

  <bullet> Local and regional networks,

  <bullet> Soil and water conservation districts,

  <bullet> Watershed councils,

  <bullet> Land trusts,

  <bullet> Contractors,

  <bullet> State foresters,

  <bullet> Rangeland specialists, and

  <bullet> Other local conservation professionals.
Expanded Recommendations to Support and Maintain Capacity for Effective 
        Conservation
    Congress and/or the agencies should:

    1. Designate collaboration and capacity building outcomes as 
        priority preference criteria for allocation of grants, loans, 
        and cost share for partnership programs in the Conservation 
        Title.
      Collaboration and partnerships create a strong new model for 
        doing business in rural America. To support this model Congress 
        should draft and approve a farm bill that will prioritize 
        funding for projects and activities that strengthen community 
        capacity by supporting strong community-based, local and 
        regional organizations and networks and the array of entities 
        that support farm bill program delivery. This can be 
        accomplished by improving criteria to reward and support 
        projects that can show evidence of collaboration and 
        partnerships and that focus on capacity building.
    2. Direct the agencies to increase their use of cooperative, 
        contribution and technical service provider agreements to 
        achieve farm bill conservation program outcomes.
      Congress and the Secretaries of USDA and USDI should provide 
        direction and training to increase the use of cooperative and 
        contribution agreements for conservation and capacity building. 
        These tools are an effective means by which NRCS can partner 
        with intermediaries to provide technical assistance to 
        landowners. The NRCS Chief should direct staff to use 
        agreements to support community-based, local and regional 
        partners in providing technical assistance, outreach and 
        community engagement for conservation programs.
    3. Formalize the role of community-based, local and regional 
        organizations as strategic agency partners in farm bill program 
        delivery.
      All partnership programs within the farm bill must provide formal 
        funding for non-Federal partners that contribute staff, 
        organizational infrastructure, knowledge and training to 
        support the delivery of conservation programs. This may include 
        the explicit provision of reimbursements for administrative 
        costs of partners or a stand-alone provision establishing an 
        education and outreach program within the farm bill. Congress 
        must work with NRCS and partners to determine the most 
        appropriate method for formalizing the role of community, local 
        and regional partners.
    4. Direct NRCS to develop and report on performance measures that 
        would allow Congress and the public to more fully understand 
        the impact of technical assistance and partnership investments.
      There must be more accountability for farm bill conservation 
        program outcomes resulting from the outlay of technical 
        assistance funding. The responsibility for reporting on 
        technical assistance funding spent and outcomes achieved can 
        and should be shared by both the NRCS and community-based, 
        local and regional organizations. NRCS should develop 
        performance measures that would allow Congress and the public 
        to more fully understand the impact of technical assistance and 
        partnership investments.
    5. Expand NRCS's ability to use Conservation Technical Assistance 
        (CTA) funding to support partnerships between NRCS staff and 
        community-based and regional organizations and other non-
        Federal conservation partners and specialists, and continue to 
        increase CTA funding in the annual appropriations process for 
        this purpose.
      Conservation Technical Assistance (CTA) funding is necessary for 
        effective outreach, delivery, and implementation of 
        conservation programs. CTA funding supports NRCS 
        representatives in the field, but it also supports the ability 
        of the agency to partner with community-based and regional 
        organizations through cooperative, contribution, and technical 
        service provider agreements and contracts. The use of 
        partnerships through these agreements can build delivery 
        capacity, create local benefit, and leverage private resources 
        for greater impact. There is a need for additional CTA funding 
        to support existing conservation programs. If additional funds 
        are unavailable, we recommend increasing the percentage of 
        total conservation program allocations that go to TA, to grow 
        the effectiveness of Financial Assistance cost-share dollars.
    6. Encourage a higher percentage of program funding be directed to 
        Technical Assistance (TA) and expand its range of use for 
        outreach, collaborative planning, and skill building 
        activities, and increased partnership with community-based, 
        local and regional organizations.
      Technical Assistance (TA) is the essential vehicle for delivery 
        of farm bill conservation programs. However, TA is consistently 
        underfunded. Even in the years when Congress allocates 
        additional funding for on the ground conservation, the 
        Executive branch neglects to provide the TA funding necessary 
        to get the project dollars on the ground. Further, TA funding 
        is only permitted for a limited category of activities 
        performed in furthering the delivery of farm bill conservation 
        programs. We strongly support the expanded use of TA funding 
        for essential capacity building activities such as: (a) 
        community engagement and collaborative watershed planning; (b) 
        program marketing and outreach; (c) support of community-based, 
        local and regional organizations serving as intermediaries 
        between Federal staff and landowners; and (d) skill building 
        and education exercises for landowners and community members. 
        This will ensure that there are TA funds available for 
        functions that are currently being ignored due to lack of 
        money.
    7. Prioritize funding to programs that support landscape-scale 
        conservation and dedicate funding to the community-based, local 
        and regional organizations that spearhead these planning 
        efforts.
      Conservation practices are most effective and provide the most 
        significant results when implemented on a landscape scale. 
        Further, meaningful partnerships among government agencies and 
        community-based, local and regional organizations can produce 
        long-lasting conservation projects that transform local 
        thinking and practice around land management. These two 
        elements--landscape-scale and local leadership--are necessary 
        to achieve the ultimate goals of the Farm Bill Conservation 
        Title. Congress should direct NRCS to prioritize funding for 
        programs and projects that incorporate these essential 
        characteristics.
    8. Direct a percentage of the Regional Conservation Partnership 
        Program (CCPI and AWEP merged program) funds to capacity 
        building and technical assistance for program implementation 
        partners and organizations.
      The Regional Conservation Partnership Program (RCPP) depends on 
        `boots on the ground' delivery by third party partners and 
        organizations. While this program supports partnerships and 
        collaborative efforts in the design stages, there is a lack of 
        funding to support other crucial activities such as outreach. 
        The impact of RCPP to local communities would be amplified if 
        the farm bill directed a portion of program funding to be used 
        to increase the organizational capacity of community-based 
        organizations that contribute to program delivery. Often, the 
        small local entities best suited to engage in the outreach and 
        education of landowners cannot cover their own administrative 
        costs or other costs of providing these services. These 
        entities should be eligible to use a portion of RCPP TA to 
        cover these costs, especially in the first year of the program, 
        when they are building their accomplishments and track record 
        to apply for additional private sources of funding.
    9. Establish reimbursements for the transaction costs and services 
        provided by community-based, local and regional groups that 
        enable landowners to participate in working lands easement 
        programs.
      For easement programs like the Farm and Ranchlands Protection 
        Program (FRPP) and the Grasslands Reserve Program (GRP), 
        Congress should allow reimbursement of transaction costs 
        incurred by cooperating entities. This would include costs for 
        appraisals, surveys, environmental assessments, title searches, 
        geologist reports, and legal fees, and should be covered for up 
        to 5% of the appraised value of the conservation easement. 
        There is also an ongoing need for funds to ensure long-term 
        monitoring and compliance with terms of conservation easements. 
        By providing funding for these transaction costs and services, 
        Congress will encourage participation and increase the capacity 
        of locally-led community-based organizations that provide the 
        coordination of these services, thereby ensuring their 
        continued participation.
    10. Expand funding for Technical Service Providers (TSP) and 
        encourage NRCS to simplify the application process, thereby 
        increasing the ability of a larger subset of non-Federal 
        partners, especially community-based, local and regional 
        organizations to become a TSP.
      Technical service providers--third parties that are hired to 
        provide technical assistance--are an important component of the 
        conservation program delivery system. Currently, the TSP 
        program is used to develop conservation plans and perform 
        limited compliance duties, and to plan, design and outline 
        conservation practices. The TSP program should be expanded 
        beyond these roles to help meet the significant workload needed 
        to deliver and implement farm bill conservation programs. This 
        is particularly important in states lacking sufficient NRCS 
        personnel to fully apply the conservation program resources 
        available to them. Another method to expand the TSP program is 
        to enhance accessibility for applicants. Many potential 
        applicants find the application process burdensome; 
        streamlining the process would increase the number of 
        applicants able to successfully enter the TSP program, thereby 
        increasing the pool of intermediaries providing farm bill 
        conservation program delivery.
Importance and Role of Community-Based Organizations in the West
    Community-based organizations (CBOs) are community-focused and 
locally-led groups uniquely positioned to play a significant role in 
the delivery of farm bill programs in the West. These groups are 
strategically situated and capable of aligning the goals, objectives 
and resources of `outside' entities--including the Federal government--
with the activities of local conservation-oriented landowners and 
businesses. Over the past 15 years, we have witnessed the success of 
these groups that occupy the space between agencies and landowners and 
leverage public and private dollars for conservation, both at the local 
and regional scales.
    Although there is no set formula for effective CBOs, there are a 
number of general commonalities:

  <bullet> A locally-focused mission that includes an integrated 
        approach to ecological conservation and restoration, natural 
        resource-based economic development, and retention and 
        promotion of local cultures;

  <bullet> A commitment to the use of collaborative processes to 
        define, implement and monitor conservation and sustainability 
        goals and activities on the landscape;

  <bullet> Governance and advisory structures that include significant 
        local leadership, complemented by diverse expertise and 
        representation that often includes conservation organizations, 
        Federal and state agencies, recreationists, and out-of-area 
        interests;

  <bullet> A business and markets orientation--driven by local and 
        regional expertise--that finds a role for Federal conservation 
        investments inside broader business models or economic 
        development plans that leverage public and private capital and 
        ``sweat equity,'' for lowest cost, highest value conservation 
        outcomes that retain jobs and wealth in the local economy; and

  <bullet> The ability to leverage small amounts of funding to 
        accomplish significant conservation goals by utilizing multiple 
        funding streams and capitalizing on local knowledge and labor.

    Developing and funding CBOs is an investment that pays dividends in 
the medium and long-term. In the short-term, building the capacity of 
organizations, training staff, engaging in collaborative planning and 
fostering relationships between landowners and Federal agencies 
utilizes resources that may not immediately lead to restoration 
activities. However, once these initial investments have been made, 
conservation implementation accelerates greatly and the ratio of 
funding for capacity building vs. funding for on the ground programs 
becomes very small. On the other hand, failing to support adequate CBO 
capacity can condemn an area to ``creeping'' restoration and 
conservation implementation, with large amounts of funding going 
underutilized or unused.
    The following entities signed-on in support of the above comments:

    Alaska

    Sitka Conservation Society

    Arizona

    Flavors Without Borders Foodways Alliance

    California

    Alliance of Forest Workers and Harvesters
    Canyon Creek Ranch--Robert H. Mackey & Sons, Inc.
    Watershed Research and Training Center

    Idaho

    Framing Our Community
    Lemhi Regional Land Trust
    National Association of Forest Service Retirees
    Salmon Valley Stewardship

    Iowa
    National Catholic Rural Life Conference

    Kentucky

    Center for Rural Strategies
    Kentuckians for the Commonwealth, Letcher County Chapter

    Massachusetts

    YouthBuild USA

    Minnesota

    League of Rural Voters

    Missouri

    Oregon County Food Producers and Artisans Co-Op

    Montana

    Bad Goat Forest Products
    Big Hole Watershed Committee
    Blackfoot Challenge
    Center for Large Landscape Conservation
    Flathead Economic Policy Center
    Northwest Connections
    Rolling Stone Ranch
    Sonoran Institute
    Swan Ecosystem Center
    Watershed Consulting, LLC

    Nevada

    Boies Ranches, Inc.

    New Hampshire

    Northern Forest Center
    The Carsey Institute

    New Mexico

    Cottonwood Gulch Foundation
    Forest Guild

    New York

    Seneca Trail RC&D Council, Inc.

    Oregon

    Applegate Partnership and Watershed Council
    Ecosystem Workforce Program
    Harney County Watershed Council
    Institute for Culture and Ecology
    Josephine County Stewardship Group
    Klamath Basin Rangeland Trust
    Lake County Resources Initiative
    Mid Klamath Watershed Council
    Oregon Rural Action
    Savory Institute, LLC
    Siuslaw Institute
    Southern Oregon Forest Restoration Collaborative
     Sustainable Northwest
    Wallowa Resources

    Washington

    Conservation Northwest
    Mt. Adams Resource Stewards
    Pinchot Institute

    Washington, D.C.

    American Forests
                            attached report



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
           Comment of Stefan Pomrenke, M.D., M.P.H., M.A.T.S.
    Date Submitted: Sunday, May 20, 2012, 9:12 p.m.
    City, State: Saint Paul, MN
    Occupation: Family Physician
    Comment: As a family physician I am deeply concerned with the 
direction of the U.S. farm bill. All efforts need to be exhausted to 
create a Healthy farm bill that has fresh fruits and vegetables at its 
cornerstone. The reliance of corn and soy as the chief commodity has 
made my patients sick. Create a local, decentralized food system that 
Minnesotans remember from their grandparent's era.
                                 ______
                                 
                       Comment of Louis Pontillo
    Date Submitted: Friday, May 18, 2012, 11:10 a.m.
    City, State: Montville, ME
    Occupation: Acupuncturist/Instructor
    Comment: Our farm bill should embrace small farms and encourage 
organic farming. We need to place a leash and muzzle on Monsanto and 
other companies that engage in ``industrial'' farming. Humanity must 
start acting their part as stewards of The Earth.
                                 ______
                                 
                         Comment of Carol Poole
    Date Submitted: Saturday, May 19, 2012, 10:08 a.m.
    City, State: Napa, CA
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: Cut the subsidies to corn producers and help the people of 
the United States get healthy vegetables, fruit and whole grains into 
their diets! Stop undercutting prices of produce from small family 
farmers within their own countries.
                                 ______
                                 
                          Comment of Anne Pope
    Date Submitted: Friday, May 18, 2012, 2:17 p.m.
    City, State: Friday Harbor, WA
    Occupation: Retired
    Comment: I am the daughter of a farmer and farmed myself for years. 
Locally I have been heavily involved in a growers coop and mobile 
slaughter unit. We need to support small farms and organic practices if 
we are to save agriculture and insure that future generations have 
access to healthy, affordable food.
                                 ______
                                 
                       Comment of Robert Popolow
    Date Submitted: Saturday, May 19, 2012, 9:47 p.m.
    City, State: New York, NY
    Occupation: IT Manager, Fitness Trainer
    Comment: I am developing a nonprofit www.worldwideconcerns.org. As 
time goes on more and more people are realizing how important it is to 
eat healthy & protect the Earth from harm so we can have a bright 
future for ourselves and our children.
    We can't just live in the moment we must pay attention to what is 
healthy and what is right for us and the Earth for the future. In the 
end there will be no choice why not start now before it becomes a 
problem which may not be reversible?
                                 ______
                                 
                      Comment of Donald J. Porter
    Date Submitted: Friday, May 18, 2012, 11:50 a.m.
    City, State: Sarasota, FL
    Occupation: Retired Investment Banker
    Comment: Organic is Critical in this Sick country Due To Chemicals 
& Payoff to politicians. Stop overuse of All chemicals Promote small 
organic farms.
                                 ______
                                 
                        Comment of Karen Porter
    Date Submitted: Monday, May 14, 2012, 3:25 p.m.
    City, State: Lubbock, TX
    Occupation: Homemaker
    Comment: No cuts to food stamps. Improve crop insurance plans. Stop 
subsidizing cheap, unhealthy crops/food. Replace cotton crops with 
hemp, which is profitable, versatile and sustainable.
                                 ______
                                 
                         Comment of Maya Porter
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Fayetteville, AR
    Occupation: Retired Editor and Gardener
    Comment: Please stop giving big subsidies to big industrial 
agriculture and put more into small, especially organic, farming. We 
need to make our food nutritious again and help the small farmer make a 
living.
    Thank you.

Maya.
                                 ______
                                 
                        Comment of Anne Portman
    Date Submitted: Thursday, April 12, 2012, 6:12 p.m.
    City, State: Albuquerque, NM
    Occupation: Professional Elementary School Counselor
    Comment: The elementary school I work in has a very high population 
of economically-disadvantaged children and families. Many of them can 
only sustain themselves through benefits such as TEFAP, WIC, and SNAP. 
The Roadrunner Food Bank (RRFB) has provided many of these families 
with an Emergency Family Food Box this year. Other New Mexico schools 
with low SES populations participate in the RRFB Food Backpack program, 
which supports them in getting adequate food supplies. Please authorize 
appropriate funding to continue and to increase these necessary 
resources for New Mexico children and families.
                                 ______
                                 
                       Comment of Natalie Posever
    Date Submitted: Thursday, May 03, 2012, 12:35 p.m.
    City, State: Amherst, MA
    Occupation: Student
    Comment: To Whom This May Concern,

    I hope this finds you doing well. I am writing to express my 
opinion regarding the future of our nation's farmers. The newly 
proposed Farm Bill of 2012 has many exciting and necessary provisions 
in it, such as directing food production away from calorically dense 
foods to nutritionally rich foods and restructuring crop insurance 
programs. However, I would like to suggest that all of these 
progressive reforms wil not be possible without the people necessary to 
implement them. The average age of farmers in our country is well over 
50, and each year more farmers leave the profession than enter it. 
Because of this, it is absolutely crucial that we incentivize young, 
educated people to enter the farming profession. This could be achieved 
through subsidized agricultural education and loans to beginning 
farmers so that they can afford to start a new farm, or transition a 
family farm into organic production. Additionally, incentives for new 
farmers should not be directed at just any means of production, but 
specifically for biointensive and organic production. By creating more, 
ecologically and socially responsible farmers, we can build the 
infrastructure necessary to implement the new farm bill. Thank you for 
your time.
            Sincerely,

Natalie Posever.
                                 ______
                                 
                         Comment of Edye Posey
    Date Submitted: Saturday, May 19, 2012, 8:59 a.m.
    City, State: Meeker, CO
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: This country has to get the control of the farming 
industry back in the hands of the true American citizen and out of the 
hands of greedy politicians, corporate agribusiness, Monsanto, and 
others whose only goal is money. Government entities have to start 
truly caring about those whom they are working for, the American 
citizen. Please put into action a farm bill that is healthy for the 
land and the health of We the People.
                                 ______
                                 
                     Comment of Katherine Potamites
    Date Submitted: Thursday, May 10, 2012, 8:36 p.m.
    City, State: Chicago, IL
    Occupation: Teacher Aide
    Comment: Please adopt the Bowles-Simpson and increase TEFAP as well 
as SNAP. It is important and necessary to protect the disadvantaged. 
Please avoid measures that would increase hunger, poverty and hardship 
in a nation as abundant as ours.
                                 ______
                                 
                         Comment of Erin Potter
    Date Submitted: Friday, May 18, 2012, 10:25 a.m.
    City, State: Virginia Beach, VA
    Occupation: Beekeeper, Gardener and USCG Reservist
    Comment: America deserves healthy choices in our Constitutional 
right to freedom in the pursuit of happiness. In order to keep healthy, 
Americans should have plenty of fruit and vegetables affordable for 
purchase. Corn should not be subsidized as it is very difficult to 
digest. High fructose corn syrup is more chemical than natural 
sweetener which means it should not be subsidized either. Our future 
depends on smart land use which means thinking in terms of life cycles 
and water cycles. Pesticides and genetically modified agriculture are 
killing honeybees which are necessary to pollination. Americans are not 
free to pursue happiness if their land is polluted and honeybees are 
all dead because we rely on the majority of our fruits and vegetables 
being pollinated by honeybees. Please subsidize fruit and vegetable 
farmers who do not use pesticides or GMOs.
                                 ______
                                 
                        Comment of Nancy Potter
    Date Submitted: Friday, May 18, 2012, 9:17 a.m.
    City, State: Traverse City, MI
    Occupation: Educator
    Comment: In the next farm bill, please stop subsidizing the large 
corporate farm companies that don't need help. Give all subsidies to 
the small farmer, organic farms, local growers, and support and help 
feed those who are going hungry in America.
                                 ______
                                 
                        Comment of Clifton Potts
    Date Submitted: Friday, May 18, 2012, 3:03 p.m.
    City, State: Topanga, CA
    Occupation: Consultant in Computer Technology
    Comment: It time to change our agriculture from one that is 
vulnerable to one that is robust. There is enough scientific literature 
proving that local agriculture is on that benefits the society as a 
whole and not just corporations. Please make your policies benefit the 
greatest number of people and the community at large.
                                 ______
                                 
                       Comment of Rebecca Poulsen
    Date Submitted: Saturday, May 19, 2012, 4:01 a.m.
    City, State: Layton, UT
    Occupation: CDL/Office Manager
    Comment: Seriously? Is this not the most important issue? The 
health, safety and proper development of our legacy? Our hearts? our 
loves? Our children Are our future . . . How the heck could we not 
place the utmost importance on them and their welfare, on all levels.
                                 ______
                                 
                       Comment of Michael Powell
    Date Submitted: Friday, May 18, 2012, 6:22 p.m.
    City, State: Sacramento, CA
    Occupation: Medical Doctor
    Comment: I am a medical professional. Organic farming produces 
better food which means healthier patients. Lets empower organic farms 
to help feed people food with fewer toxins and higher nutrient content.
                                 ______
                                 
                       Comment of William Powell
    Date Submitted: Friday, May 11, 2012, 3:11 p.m.
    City, State: Port Orange, FL
    Occupation: Hospitality Sales Management
    Comment: I support the movement to attach TEFAP funding to the rate 
of national, state and local unemployment. As a family of five with 
three young children, I have been one of the many victims of economic 
downturn of the past few years, and the SNAP program was vital in 
helping me feed my children when they would have otherwise gone hungry. 
Please don't allow congress to cut the SNAP program; this is a vital 
lifeline for honest, taxpaying and registered voting Americans.
                                 ______
                                 
                         Comment of Ann Powers
    Date Submitted: Friday, May 18, 2012, 5:23 p.m.
    City, State: Chino Valley, AZ
    Occupation: Housewife
    Comment: Please do not allow any cuts on SNAP program. My husband 
works part time and I am unable to work if it wasn't for our food 
stamps every month we would have nothing to spend on food. What little 
we do get I make stretch as best I can. I am not the only one in this 
area. This could cause a drastic problem in this country with 
unemployment being up and cuts in other programs. It will become a 
third world nation where other nations will be sending us food to help 
stop starvation In This Country.
                                 ______
                                 
                        Comment of Bruce Powers
    Date Submitted: Friday, May 18, 2012, 5:11 p.m.
    City, State: Chelan, WA
    Occupation: Retired
    Comment: I am concerned that manufacturers are pushing legislature 
to grant approvals to products that may have dangerous attributes.
    They seem in such a hurry to legalize their creations of seeds or 
chemicals, perhaps before the potential consequences of the product or 
practice are thoroughly tested in real world circumstances.
    The reasons they present to justify quick action seem more aligned 
with competition, grabbing market share, and gaining dominance, 
including reducing options for the grower.
    We know about canaries in the coal mines, but maybe the bee is the 
messenger in our fields. There is some evidence, that bee colonies are 
being decimated by minute quantities of pesticide ingredients in corn 
syrup fed to bees to facilitate overwintering.
    These kinds of things take time to resolve. We should not rush the 
legislative process to appease the lobbyists.
    If Bees could vote, they might survive.
                                 ______
                                 
                       Comment of Heather Powers
    Date Submitted: Friday, May 18, 2012, 2:09 p.m.
    City, State: Charleston, SC
    Occupation: Professional Organizer
    Comment: Dear Mr. Scott,

    I'm writing to tell you about my concerns to pending changes to the 
farm policy. Below are some of the issues I support and hope to hear 
that you do as well. I am a new constituent to your district and feel 
that it is vitally important to national security, our local and 
national economy and health of American's to be able to eat healthy, 
sustainable foods from locally produced farms.

  <bullet> Full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

  <bullet> Full funding of conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    As a supporter of local farms in several states over the last 10 
years I have learned first hand about local food production. It can 
bring communities together, forge economic opportunities and create 
healthier citizens. I hope you will keep my concerns in mind as you 
cast your vote.
            Sincerely,

Heather.
                                 ______
                                 
                        Comment of Janet Powers
    Date Submitted: Saturday, May 19, 2012, 10:39 p.m.
    City, State: Gettysburg, PA
    Occupation: College Professor
    Comment: I live in an agricultural area, where all types of fruit 
are grown on family farms or by small producers. Thus everyone in our 
area has a stake in a better farm bill that will support organic 
farming as well as healthy nutrition for those on the SNAP program. 
Cutting funding for those programs at such a crucial time would be a 
terrible mistake! I urge you to pass a farm bill that is sensitive to 
the needs of the American people and not to the demands of 
agribusiness.
                                 ______
                                 
                         Comment of Robin Powis
    Date Submitted: Sunday, May 20, 2012, 5:00 p.m.
    City, State: Alachua, FL
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Please support sustainable agricultural policy that 
encourages small farms and the preservation of natural resources.

Robin Powis.
                                 ______
                                 
                        Comment of Andrew Poyant
    Date Submitted: Sunday, May 20, 2012, 5:33 p.m.
    City, State: Cambridge, MA
    Occupation: Environmental Scientist
    Comment: As a soil scientist and biologist it is important that we 
change the way that government funds agriculture. Funding should only 
be provided to organic, sustainable practices. The farm bill is a way 
that if written correctly can increase the health of our environment 
including water and soil, and increase the health of Americans by 
subsidizing fruits and vegetables instead of higher caloric foods such 
as meats and grains.
                                 ______
                                 
                          Comment of Jim Prado
    Date Submitted: Friday, May 18, 2012, 9:40 p.m.
    City, State: Roxbury, CT
    Occupation: Chiropractor
    Comment: I see firsthand on a daily basis the damage done to the 
health of American's which takes the form of diseases related to 
chronic inflammation. Chronic inflammation is initiated and exacerbated 
by a diet high in corn and grain. If you are serious about making 
people healthy then try subsidizing organic vegetable farmers and not 
corn and grain growers!
                                 ______
                                 
                        Comment of Beth Prather
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Robert Lee, TX
    Occupation: Librarian
    Comment: Please, as a first priority, consider the environment and 
the 99% who actually purchase super market food to feed to their 
families. The lobbying by corporations is never in the interest of the 
99% . . . nor the environment.
                                 ______
                                 
                       Comment of Christine Pratt
    Date Submitted: Friday, May 18, 2012, 1:52 p.m.
    City, State: Spokane Valley, WA
    Occupation: Esthetician
    Comment: Please, support organics more now than ever. We need good 
healthy whole food for our families. I choose No genetically modified 
food. We need labeling for the genetically modified food so consumers 
have a choice.
                                 ______
                                 
                        Comment of Shannah Praus
    Date Submitted: Wednesday, May 09, 2012, 4:54 p.m.
    City, State: Portland, OR
    Occupation: Unemployed
    Comment: Please protect any all nutritional programs for seniors. 
Many need all the assistance afforded them. They deserve this much for 
all they have contributed. Thank you.
                                 ______
                                 
                       Comment of Stewart Pravda
    Date Submitted: Friday, May 18, 2012, 9:41 a.m.
    City, State: Brooklyn, NY
    Comment: We try to buy local and organic as often as possible from 
the Park Slope Food Co-op and the Farmers Market at Prospect Park 
(GreenMarket). These are important issues for us and society. Please 
consider supporting it.
                                 ______
                                 
                       Comment of Donna Precopio
    Date Submitted: Sunday, May 20, 2012, 2:55 p.m.
    City, State: Novato, CA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Please protect our small farms. It is from local small 
farms that most of the people of California get their produce.

Donna Precopio.
                                 ______
                                 
                        Comment of Will Preston
    Date Submitted: Friday, May 11, 2012, 3:59 p.m.
    City, State: Seattle, WA
    Occupation: Network Administrator
    Comment: Please align the farm subsidies more closely with 
encouraging healthy fruits and vegetables, and discouraging unhealthy 
foods such as meat, dairy, corn and soybeans. Thank you.
                                 ______
                                 
                        Comment of Caitlin Price
    Date Submitted: Friday, May 18, 2012, 3:13 p.m.
    City, State: Mount Vernon, WA
    Occupation: Agriculture Research
    Comment: We need a farm bill that supports diverse crops, small and 
medium sized farms, and access to fresh, nutritious food for those on 
food assistance programs.
    The following is needed:

  <bullet> Place limitations on crop insurance subsidies and to re-
        attach soil erosion and wetland conservation requirements to 
        crop insurance programs.

  <bullet> A strong Beginning Farmer and Rancher Development program to 
        ensure we continue to have farms producing food.

  <bullet> Strong support of research into new and innovative 
        production practices that reduce chemical inputs, protect soil 
        and water resources, and promote biologically diverse farms.

  <bullet> Use the farm bill to support job creation in rural areas!

  <bullet> Significantly reduce subsidies for commodity growers. This 
        system promotes over-use of fertilizers, contamination of 
        ground water, soil loss, and over reliance on GMOS, chemicals, 
        and fossil fuels. The funds would be much better spent 
        promoting rural development, small to medium sized farms, and 
        diverse crops.
                                 ______
                                 
                       Comment of Jennifer Price
    Date Submitted: Friday, May 18, 2012, 11:07 a.m.
    City, State: Louisville, KY
    Occupation: Administrative
    Comment: Dear representative,

    Any reform that can be made to aid farmers who produce various 
crops instead of one singular crop should be made. Also I would like to 
see the bill to include requirements of farmers to preserve natural 
wetlands and use proper techniques to prevent soil erosion to protect 
our waterways!
            Thank you,

Jennifer Price.
                                 ______
                                 
                      Comment of John Price, Ph.D.
    Date Submitted: Saturday, May 19, 2012, 2:54 p.m.
    City, State: Vero Beach, FL
    Occupation: Retired Scientist--Organic Chemistry, Ph.D.
    Comment: Dear Members of House Committee on Agriculture;

    I am in favor of scrapping the current drafts of the House 
Agriculture farm bill and replacing those drafts with legislation which 
would benefit the real producers of safe organically grown produce,--
the small, family-owned farm workers who grow organic foods and who are 
in need of rules and laws which would help sustain these healthy food 
practices. An organic, and healthy food bill would, hopefully, provide 
the impetus to these beneficial actions--not the currently drafted bill 
currently before the House AG Committee.
    Thank you kindly for considering the welfare of ordinary citizens 
and family owned farms.
                                 ______
                                 
                         Comment of Judy Price
    Date Submitted: Sunday, May 20, 2012, 3:21 p.m.
    City, State: Tulalip, WA
    Occupation: Writer, Artist, Musician
    Comment: We have to pay attention to our future needs.
    Now is the time to begin labeling our foods and stopping the 
control a few have over us. GMOs are completely taking over our land. 
The organic farmers are stopped from growing what they want by law 
suits from Monsanto suing because their seeds blew over into 
neighboring farm land.
    This is Not a complex request. It is essential to our health, our 
families health and the health of our land. If you like peeing Round-
up, as you are now, than ignore this and make your money voting against 
a clean healthy world.
    The numbers are startling. 70% of our food is already GMO and up to 
90% corn and soy are GMO. This is frightening.
    It may be too late for you and your children to be healthy already.
            Sincerely,

Judy Price.
                                 ______
                                 
                         Comment of Kent Price
    Date Submitted: Saturday, May 19, 2012, 4:07 p.m.
    City, State: Orland, ME
    Occupation: Retired
    Comment: As a former staff member of the National Center for Food 
and Agricultural Policy and a hobby farmer in retirement, I am familiar 
with both the promise and the problems of the nation's productive lands 
and waters. Chief among the set of problems is the malign influence of 
industrial agriculture. In ag, too, small can be beautiful.
                                 ______
                                 
                        Comment of Laurie Price
    Date Submitted: Friday, May 18, 2012, 2:10 p.m.
    City, State: New York, NY
    Occupation: Editor, Translator
    Comment: Conservation, organic farming and sustainable agriculture 
(non-GMO) are So important if we're to preserve our health and the 
livelihoods of our farmers. This is absolutely Not the moment to cut 
funding to these programs. It's already hard enough out there without 
losing basic rights to eat healthy, nutritious food that supports the 
livelihood of farmers and sustainable agricultural practices.
                                 ______
                                 
                         Comment of Traer Price
    Date Submitted: Friday, March 16, 2012, 8:35 a.m.
    City, State: St. Petersburg, FL
    Occupation: Freelance Designer
    Comment: An article was published in the St. Petersburg Times not 
long ago detailing the need for food assistance in our community 
(http://www.tampabay.com/news/humaninterest/huge-food-giveaway-in-st-
petersburg-underscores-new-face-of-the-poor/1205247,* now the Tampa Bay 
Times). The restaurants in our more affluent areas are full of tourists 
and yet 1,900 people (4 times the number expected) stood in line for 
free food--a revelation to many of us that so many of our neighbors are 
living with hunger.
---------------------------------------------------------------------------
    * The information referred to is included in Committee file.
---------------------------------------------------------------------------
    Please pass a farm bill that provides ample support to all of the 
programs that assist folks in need of nutrition--SNAP, TEFAP, and CSFP. 
These difficult times require a lean, organized and effective approach 
to any assistance the government provides America's citizens, but it is 
in the worst of times that we must make sure those hit hardest have 
help. Families who have never had to contend with hunger are standing 
alongside people who have struggled with homelessness for years--there 
are many and varied needs, but America knows who to produce and supply 
food and even in the midst of this stubborn recession we can and should 
continue to provide assistance to people facing this most basic need.
                                 ______
                                 
                         Comment of Wayne Price
    Date Submitted: Saturday, May 19, 2012, 6:57 a.m.
    City, State: Kansas City, MO
    Occupation: Factory Worker
    Comment: We want our God given rights to make our own choices about 
unadulterated foods. We need protection from the overzealous FDA and 
Big Agribusiness, not organic farmers and raw milk.
                                 ______
                                 
                      Comment of Elizabeth Priebe
    Date Submitted: Friday, May 18, 2012, 5:58 p.m.
    City, State: Mansfield, TX
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: We only make a small amount from raising our angora and do 
not intend to be living on our farming. We just enjoy our land and this 
is what we want for America, to know that they come from the land. Our 
very life is dependent on what the land brings forth. Please support 
local farmers, sustainable practices and healthy standards that will 
not rape our land.
                                 ______
                                 
                        Comment of Wanda Priest
    Date Submitted: Friday, May 18, 2012, 9:53 a.m.
    City, State: Estill Springs, TN
    Occupation: Retail
    Comment: I am 46, a mom of 3, cancer patient concerned about the 
health of future generations. We understand more today about how 
nutrition plays a role in health and studies have Proven GMO's, 
pesticides and monocultures based on singular species are detrimental 
to our environment and cause diseases such cancer, diabetes and heart 
disease. The farm bill can sway the future of American health and lower 
the epic cost of health care by steering our food production on a new 
course. Providing funding for closed loop agriculture whereby farmers 
use livestock to return nutrients to the land on which they produce 
crops would be the incentive to put nutrition back into the foods we 
eat. Additionally, this type of agriculture would increase rural jobs 
while allowing our lands to heal and reducing toxins in our water 
system. These are just a few of the positive aspects of returning food 
production to the people as opposed to corporate farming. Won't you 
consider how you can lessen the suffering of your grandchildren by 
acting now on the main source of disease? Please contact me with 
questions or ideas.

Wanda,
[Redacted].
                                 ______
                                 
                        Comment of Eric Prileson
    Date Submitted: Friday, May 18, 2012, 12:27 p.m.
    City, State: Tucson, AZ
    Occupation: Policy Writer
    Comment: Please consider the immediate and far reaching benefits of 
vital nutrition programs. While maintaining a current healthy fiscal 
balance may seem more important, the future ability to rise up 
economically will sustain our economy and workforce better with an 
investment in our future. Thank you.
                                 ______
                                 
                     Comment of H. Bruce Prillaman
    Date Submitted: Monday, May 14, 2012, 4:18 p.m.
    City, State: Roanoke, VA
    Occupation: Retired
    Comment: From USDA statistics this presents a huge tax saving 
opportunity. Large Farm companies should be able to do business like 
any other. Provide or not provide their own insurance, Hedge or not 
hedge crop prices with futures, etc. Since 1932 or earlier we have 
subsidized this activity. Will they ever grow or stand on their own?--
Not as long as we provide support! If this is to protect the small farm 
then Make It For Small Farms.
    Note--according to USDA.

  <bullet> 62% percent of farms in United States did not collect 
        subsidy payments

  <bullet> 10% percent collected 74% percent of all subsidies. 
        Amounting to $261.9 billion over 16 years.
                                 ______
                                 
                       Comment of Pamela Prindle
    Date Submitted: Friday, May 18, 2012, 2:43 p.m.
    City, State: Albany, CA
    Occupation: Student
    Comment: Dear Committee Members,

    I'm a concerned Citizen and member of the Organic Consumer Assn. 
I'm writing to ask that the Committee Please do not cut $4 million from 
the organic research funding or cut in half funding to support 
Beginning Farmers.
    I come from a long line of small farmers from the CA Central 
Valley. The food my family grew and continues to grow feeds Americans 
healthy, nourishing food.
    I have worked at the local farmer's market in my community for my 
friend's who are small farmers and have an organic farm in Santa Cruz, 
CA. I know the value of small farmer's to the health and wellness of 
our communities across America.
    Please cut funding to support large Agri-Business instead of 
America's small farmers. Small farmers create jobs and bring truly high 
quality food to our fellow Citizens.
    Thank you.
                                 ______
                                 
                        Comment of Bruce Pringle
    Date Submitted: Friday, May 18, 2012, 5:01 p.m.
    City, State: Normandy Park, WA
    Occupation: Sociologist
    Comment: Please cut out subsidies for large corporations and help 
small farmers. Label genetically altered foods. Protect the public from 
toxic substances.
                                 ______
                                 
                        Comment of Stacy Pringle
    Date Submitted: Thursday, May 10, 2012, 10:43 a.m.
    City, State: Springfield, MA
    Occupation: Graduate Student/Administrative Assistant
    Comment: Congress protect Hungry Families!

          ``The King will reply, `Truly I tell you, whatever you did 
        for one of the least of these brothers and sisters of mine, you 
        did for me.' '' Matthew 25:40 (NIV)

    Please protect funding for critical Federal nutrition programs, 
including the Supplemental Nutrition Assistance Program (SNAP) as you 
work to re-authorize the farm bill.
    My vote counts!
                                 ______
                                 
                         Comment of Johni Prinz
    Date Submitted: Friday, May 18, 2012, 8:18 p.m.
    City, State: Ocean Shores, WA
    Occupation: Disabled
    Comment: Cutting funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture is not 
helpful. As a once middle class woman, I am now 63, poor and nutrition 
is in the forefront of my needs. After all, who can afford health care? 
Certainly not me. So allow me to take care of myself.
                                 ______
                                 
                      Comment of Gralin Pritchard
    Date Submitted: Friday, May 18, 2012, 7:52 p.m.
    City, State: Houston, TX
    Occupation: Healthcare
    Comment: Do not facilitate the monopolization of the agriculture 
industry via this NDAA, it's like regulating oxygen. Industrialized 
farming, especially GMO farming, is the worst idea since the 
concentration camp, but actually does more damage in the long run. 
Anything that subsidizes it in the form of regulations against its 
competition is Not good for a person who eats food to stay alive. The 
question is, do you consider yourself an ``eater''?
                                 ______
                                 
                     Comment of Brenda P. Probasco
    Date Submitted: Friday, May 18, 2012, 12:45 p.m.
    City, State: Kill Devil Hills, NC
    Occupation: Restaurant Server
    Comment: Our healthcare crisis will only be ameliorated when people 
have access to healthy foods . . . not the GMO, oil-based pesticide and 
fertilized processed garbage that subsidized agribusinesses sell to 
supermarkets. Stop the wrong subsidies and give us safe, healthy food.
                                 ______
                                 
                        Comment of Kelly Probst
    Date Submitted: Friday, May 18, 2012, 11:28 p.m.
    City, State: Sequim, WA
    Occupation: Ranch Animal Care-Giver
    Comment: Dear House Agriculture Committee,

    As a resident of Washington State, I support the full endorsement 
of all provisions of the Local Foods, Farms and Jobs Act (H.R. 3286).
    I request that you Fully fund conservation programs, such as the 
Conservation Stewardship Program, and make sure that enrollment in any 
new insurance subsidies are tied directly to compliance with 
conservation programs.
    I also support the implementation of all provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236). You must 
maintain the EQIP Organic Initiative.
    I ask that you put forth special consideration for organic food 
research and support all funding for America's organic farmers. Our 
food is becoming poisoned through big Ag's over use of pesticides, 
insecticides, antibiotics, hormones and genetically modified foods. 
Enough is enough. I want healthy food from healthy soil free of big 
ag's corporate special interests.
                                 ______
                                 
                        Comment of Tom Prochaska
    Date Submitted: Friday, May 18, 2012, 2:41 p.m.
    City, State: Cleveland Heights, OH
    Occupation: Writer
    Comment: Please stop trying to slash the budget for the SNAP 
program and instead use money from the excessive grain subsidies that 
no longer make sense for our nation. We should still support our 
farmers, but we should stop incentivizing the overproduction of corn 
and other grains. Instead we should be subsidizing the foods our 
nations needs, like fruits and vegetables.
                                 ______
                                 
                        Comment of Chris Proctor
    Date Submitted: Sunday, May 20, 2012, 4:54 p.m.
    City, State: St. Louis, MO
    Occupation: Sales Rep.
    Comment: It is well past time for the farm bill to actually focus 
mainly on Food, not food ingredients. Very few of us eat soybeans 
directly, and no one eats field corn which both get the lion's share of 
the funding. We need to be supporting our farmers that provide Fresh 
fruits and vegetables, especially our small farmers. Processed food is 
killing our citizens, and low income Americans can't afford as much 
fresh, unprocessed food as they need.
                                 ______
                                 
                      Comment of Geraldine Proctor
    Date Submitted: Wednesday, May 09, 2012, 3:32 p.m.
    City, State: St. Louis, MO
    Occupation: Ordained Minister
    Comment: Please protect funding for critical Federal nutrition 
programs, including the Supplemental Nutrition Assistance Program 
(SNAP) as you work to re-authorize the farm bill. Cutting here is not 
the way to balance the budget. Please cut corporate entitlements 
instead. There is no way hard-pressed churches can feed all the hungry 
if the nutrition programs are cut.
                                 ______
                                 
                        Comment of John Proctor
    Date Submitted: Friday, May 18, 2012, 6:33 p.m.
    City, State: Eugene, OR
    Occupation: Retired
    Comment: Give us a farm bill with real reform that encourages the 
best, most healthful practices like organic, non-GMO farming. End 
subsidies for large absentee owner chemical using farms.
            Thank you,

John Proctor.
                                 ______
                                 
                       Comment of Dennis Proffitt
    Date Submitted: Friday, May 18, 2012, 1:44 p.m.
    City, State: Ann Arbor, MI
    Occupation: Retired
    Comment: I think that the organic farmers of this country need more 
support as it is the best food while poisons and GMOS are funded and 
protected under rogue laws for debatable controversial reasons! I 
demand as a citizen and a taxpayer that my taxes go to Organic farmers 
not death dealers in poisons and mutated foods! No to frankenfoods yes 
to natural organic foods! Thank you.
                                 ______
                                 
                       Comment of Robin Proffitt
    Date Submitted: Friday, May 11, 2012, 4:38 p.m.
    City, State: Ellinwood, KS
    Producer/Non-producer: Producer
    Type: Livestock, Other
    Size: 1,000+ acres
    Comment: Our main concern is it appears to be a mirror image of the 
1980's Country's when land values skyrocketed and landowners were 
encouraged to borrow more to operate under low interest rates. Many 
lost farms & ranches when land values dropped and interest rates rose. 
Our own government encouraged spend, spend, spend. Don't let this 
happen again please.
                                 ______
                                 
                       Comment of Diane Propster
    Date Submitted: Wednesday, May 09, 2012, 5:00 p.m.
    City, State: Los Angeles, CA
    Occupation: Retired Teacher
    Comment: I have seen too many friends and acquaintances who after 
retirement have lost their condos, have very little to live on, and in 
three cases were homeless or have had to go to live with relatives. 
These are people with college degrees and professions. On the streets 
of West Los Angeles, an affluent area there are often seniors who are 
homeless. It is horrifying to see so many people unable to have a 
decent standard of living who have been professional. This does not 
even touch on the working and poor. It is even more tragic. These 
people need food and shelter. They are not alcoholics or drug addicts. 
Their sin is that often they have changed professions mid-life. For 
women it is often a divorce that leaves them financially vulnerable.
                                 ______
                                 
                         Comment of Jean Public
    Date Submitted: Friday, May 18, 2012, 7:11 p.m.
    City, State: Flemington, NJ
    Occupation: Retired
    Comment: No extra money to corn. No use of corn for fuel at any 
time--ethanol is a terrible waste of tax dollars. No subsidies to big 
corporations. Help produce safe and healthy plants. Shut down abuse of 
animals with the beatings, the tail dockings, the pulling out of their 
teeth, the dehorning, the drowning in antibiotics.
                                 ______
                                 
                         Comment of Debbie Puch
    Date Submitted: Saturday, May 19, 2012, 12:05 a.m.
    City, State: Key Largo, FL
    Occupation: Aesthetician
    Comment: Please protect our small organic farmers in this country.
    Protect us from the toxic GMO seeds. I use only organic skin care 
products in my business. In eat only
    Organic fresh foods, grass fed beef, free roaming chicken and eggs. 
Please think of the family farmers instead of companies like Monsanto & 
Dow.
                                 ______
                                 
                     Comment of Susan Lang Puckett
    Date Submitted: Friday, May 18, 2012, 3:06 p.m.
    City, State: Nashville, TN
    Occupation: Author, Health Coach
    Comment: I support organic farming. I am against Monsanto and the 
genetic modification of foods. Monsanto is killing Americans with 
unhealthy foods, ruining the soils and tampering with nature. Stop 
Monsanto and support the organic farmers. Fire Michael Taylor as FDA 
Food Safety Czar. He is a Monsanto guy--that is a conflict of interest. 
Do something to save the organic farmer!
                                 ______
                                 
                        Comment of Martha Puente
    Date Submitted: Wednesday, May 16, 2012, 8:33 p.m.
    City, State: Santa Rosa, CA
    Occupation: Planner/Land Acquisition Specialist
    Comment: I work for the Sonoma County Agricultural Preservation and 
Open Space District. In 2005, we received a $500,000 grant from the 
Farm and Ranchland Protection Program for an 875 acre livestock grazing 
operation which now has a perpetual agricultural conservation easement 
over the land. Development rights were extinguished, total price of the 
easement $3,150,000, so the $500,000 FRPP grant was essential. Sonoma 
County farmland is at high risk for conversion to non-agricultural 
uses. Sonoma County is adjacent to Napa & Marin counties, two very 
wealthy counties, and development of farmland in Sonoma is on the rise. 
These grants are essential if we want to produce safe and locally grown 
and raised food. I urge you to continue these very important Federal 
grant programs.
            With sincere thanks,

Martha Puente.
                                 ______
                                 
                          Comment of Rene Pugh
    Date Submitted: Sunday, May 20, 2012, 7:41 p.m.
    City, State: Downingtown, PA
    Comment: Factory Farms are the bane of agriculture . . . huge 
operations that are inhumane, abusive, unfriendly and hurtful to 
animals and humans . . . these FF's breed filth, contamination in 
despicable conditions that any of the animals need hefty doses of 
antibiotics. It is a sick, unhealthy, gross way to operate. The focus 
should be on supporting sustainable agriculture . . . local farms/
farmers; organic production and organic farms . . . these are the farms 
that the Dept of Ag. should be supporting vs. the greedy arrogance of 
Factory Farms who are too big and who do not give a crap about raising 
healthy uncontaminated animals or plants. These ag corporations only 
care about themselves and their bottom line.
                                 ______
                                 
                         Comment of Debbie Puhl
    Date Submitted: Saturday, May 19, 2012, 8:42 p.m.
    City, State: Portland, OR
    Occupation: Housewife
    Comment: Please give us real farm bill reform. Crop insurance of 
some kind, but not huge and constant subsidies of the commodity crops, 
to agribusiness corporations. Promote sustainable and organic practices 
in farming, and family farms. Label GMO foods. Aid the transfer of 
family farms from the baby boomer generation to this new generation of 
farmer-want-to-be's--I know there are lots of young people in Oregon 
who would like to farm--I've met plenty while helping out at a local 
CSA. Encourage the poor to buy fresh food and cook it. Encourage 
regional self-sufficiency of food production.
                                 ______
                                 
                        Comment of Andrea Purdon
    Date Submitted: Saturday, May 19, 2012, 1:26 p.m.
    City, State: Grand Island, FL
    Occupation: Artist/Semi-Retired
    Comment: I have multiple chemical sensitivities and have reached 
the point that about 95% of what I eat has to be organic, non-GMO, and 
hormone/antibiotic free. I have to drive an hour to get to a decent 
selection of organic food. I am the proverbial canary in the coal mine 
and I am meeting more and more people like me that are displaying the 
symptoms I had 15 years ago.
    I am now growing as much vegetable and fruit as I can and I now 
realize that we are handicapping our population by not teaching the 
basics of farming to future generations. If we ever have a national 
disaster that disrupts our ability to access food we will have public 
uproar. WE know who they will blame. Money needs to be spent on the 
organic farmer, not the big corporation. Our health and the health of 
our nation is at stake.
                                 ______
                                 
                       Comment of Barbara Putnam
    Date Submitted: Tuesday, May 15, 2012, 7:17 a.m.
    City, State: Litchfield, CT
    Producer/Non-producer: Producer
    Type: Forestry, Fruits, Greenhouse/nursery, Vegetables
    Size: Less than 50 acres
    Comment: As a small organic farmer, I want to see a farm bill that 
helps us produce healthy food and protect the fertility of the soil and 
the purity of our water. As a 64 year old farmer, I want to see a 
younger generation of farmers ready to build on what I have worked hard 
to create. As a Master Gardener trained by the Cooperative Extension, I 
want a farm bill that supports ongoing research. Please keep these 
principles in mind when creating a farm bill.
                                 ______
                                 
                    Comments of Herbert Putz, Ph.D.
    Date Submitted: Friday, March 23, 2012, 2:48 p.m.
    City, State: Orange, VA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: The most important issue for the new farm bill is crop 
insurance. The present mandated deductible is way too large as multiple 
weather related crop losses will amount to losing one full crop. That 
is financially difficult for farmers to digest. Second, the RMA 
regulations/handbooks are favoring the AIP to the detriment of the 
insured.
    Most of the crop insurance regulations issued by USDA RMA are very 
difficult to understand for a non bureaucrat. Matter of fact a Circuit 
Judge in VA ask who was dreaming up these terms they are crazy! Reduce 
the insurance terms to more farmer friendly terms and not the AIP and 
RMS.
            Respectfully,

Dr. H. Putz.

    Date Submitted: Friday, April 20, 2012, 12:44 p.m.
    Comment:

    (1) crop insurance is imperative

    (2) a 30 to 35% deductible is not a ``safety net'' as multiple 
        disaster season can amount out one or more total crops

    (3) forget ACRE Sure are any new gimmicks--they are expensive to 
        administrate and complicated--it is simpler to reduce the 
        deductible

    (4) RMA handbook regulations favor insurance providers to the 
        detriment of the insured. AIP use the handbooks to find 
        loopholes to cheat insured of their claims

    (5) move the crop insurance program to FSA which will save $1.7 b 
        in administrative contributions to the AIP.

    (6) provide legal support that insured can find and hire an 
        adjuster who represents the insured interests and is no longer 
        subject to a unilateral AIP hired adjuster

    (7) if you want to hear more of our experience and expertise as 
        farmers please invite me to your next hearing
            Respectfully,

Dr. H. Putz.
                                 ______
                                 
                         Comment of Pennie Pyle
    Date Submitted: Saturday, May 19, 2012, 8:41 p.m.
    City, State: Conway, SC
    Occupation: Eldercare Worker
    Comment: I urge congress, in the strongest terms possible to pass a 
bill to protect the Organic Farmers and the American public from The 
Ag-Business bullies like Monsanto. The Ag-Business has put profits 
above lives for too long and we need to return to natural farming and 
antique seed and safe, farm raised food animals instead of factory 
raised livestock now before the medical costs of the GMO foods 
skyrocket. There is enough clinical evidence to prove that the GMOs 
cause medical problems to make this issue a ``no-brainer''. If you care 
at all about what you put in your own bodies and what you feed your own 
children, to stop the rape and poisoning of our food supply.
    Please, please protect our food from the Ag-Business now!
                                 ______
                                 
                        Comment of Charlie Quaid
    Date Submitted: Friday, May 18, 2012, 10:00 a.m.
    City, State: Richmond, CA
    Occupation: CFO
    Comment: The farm bill should support sustainable agriculture, 
especially small, family operated, non-monoculture, non-petroleum 
based, clean, and fair farming. The benefactors of the farm bill should 
be the consuming public as well as the producing farmers and it should 
not support large agribusiness concerns.
                                 ______
                                 
                       Comment of Susanne Quattro
    Date Submitted: Friday, May 18, 2012, 2:58 p.m.
    City, State: Saint James City, FL
    Occupation: CPA
    Comment: I would like the health of each end user, with the Earth 
included as an end user, to be considered by promotion of organic 
natural practices and disregarding the impact of big AG and big money. 
I need to be able to choose what goes into my body with my food 
purchases and that means no GMO and no pesticides and humane treatment 
for farm animals. With the mass media and internet research available, 
the end user is becoming more of an educated consumer. As such, the 
choice of what to purchase will ultimately be the determinant in all of 
these issues. This includes who to vote as a representative of those 
issues.
                                 ______
                                 
                       Comment of Gina Quattrochi
    Date Submitted: Tuesday, May 15, 2012, 1:24 p.m.
    City, State: Los Angeles, CA
    Occupation: Nonprofit Outreach
    Comment: Please take obesity and public health as a serious matter; 
we need more food safety guidelines, nutrition education in public 
schooling, and support of small, local farmers and food systems.
                                 ______
                                 
                       Comment of Lisa Quattrochi
    Date Submitted: Friday, May 18, 2012, 10:48 a.m.
    City, State: Aliso Viejo, CA
    Occupation: Property Management
    Comment: We want organic food--absolutely no pesticides or 
herbicides, these get into our water, air, and ocean. Look to other 
countries for ideas! Thanks!
                                 ______
                                 
                         Comment of M.A. Quest
    Date Submitted: Friday, May 18, 2012, 1:48 p.m.
    City, State: Ekalaka, MT
    Occupation: Proofreader/Graphic Artist
    Comment: It is time to consider All Americans who eat food from 
producers. We have the Right to whole food, unadulterated by chemicals 
and genetically modified materials of who knows what creature/bug. 
Consider your children and grandchildren's future when making your 
decisions that affect all of us.
    Thank you.
                                 ______
                                 
                         Comment of James Quick
    Date Submitted: Saturday, May 19, 2012, 9:23 a.m.
    City, State: Green Lake, WI
    Producer/Non-producer: Producer
    Type: Livestock, Vegetables
    Size: 50-150 acres
    Comment: My biggest concern is the need for protection for the food 
producer of non GMO plant and animal products. Currently, most of the 
power lies with the large chemical producers and their patents to the 
detriment of the anyone wishing to produce or propagate food not 
influenced by GMO plants or the chemicals these plants were designed to 
work with.
    The integrity of our food supply is at stake and we cannot allow 
large commercial interests to dictate our future for the sake of their 
profits.
                                 ______
                                 
                        Comment of Susan Quillio
    Date Submitted: Friday, May 18, 2012, 9:06 a.m.
    City, State: Greenwich, NY
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: We prepare foods sourced from local and regional 
vegetable, meat, dairy and grain farms for our catering company. 
Helping to create stronger regional economic viability and good quality 
clean food is our focus. Please help us in this fundamental effort.
            Yours,

Susan Quillio.
                                 ______
                                 
                       Comment of Jennifer Quinn
    Date Submitted: Sunday, May 20, 2012, 8:59 p.m.
    City, State: Allentown, PA
    Occupation: Retired
    Comment: I understand that budget cuts are needed at this time, but 
it is unfair to cut programs that provide vital support to sustainable, 
consumer-friendly farming, while retaining subsidies that benefit 
corporate agriculture at the expense of the small farmer and our 
natural resources. Any farm subsidies should be tied to responsible 
stewardship of the land.
                                 ______
                                 
                       Comment of Laurie Quintal
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: New Bedford, MA
    Occupation: Psychotherapist
    Comment: I have 2 sons with autism. Their brains have continually 
progressed due in large part by good nutrition. Organic foods (non-
GMO!) Are imperative to their development and health.
                                 ______
                                 
                 Comment of Ninu-Alexandri Quirk, M.D.
    Date Submitted: Friday, May 18, 2012, 6:44 p.m.
    City, State: Pahoa, HI
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: Farm subsidy should stop supporting grain and start 
promoting the healthy fruits and vegetables that Americans need to eat 
to improve their health. Additionally, a movement away from subsidizing 
agribusiness and towards supporting small farmers would be good for our 
country. I'm a farmer and a medical doctor and very aware of the 
connections between farm policy, food, nutrition and health.
                                 ______
                                 
                 Comment of Yvonne R. de Miranda, Ph.D.
    Date Submitted: Friday, May 18, 2012 8:29 p.m.
    City, State: Deadwood, OR
    Comment: I am desolate at again finding that agribusiness is 
rewarded for its poor practices and that small farmers who produce the 
best and healthiest of nourishment are punished. It is shocking.
    I strongly support the following:

  <bullet> full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    It is high time to place the priorities of food consumers at the 
top. Agribusiness is literally killing people and abusing animals and 
the land.
    There must be a way stop an ongoing inequity. Please listen to 
those who are negatively impacted. It is time to Wake Up!
                                 ______
                                 
                         Comment of Seth Raabe
    Date Submitted: Friday, May 18, 2012, 1:55 p.m.
    City, State: Hana, HI
    Producer/Non-producer: Producer
    Type: Field Crops, Forestry, Fruits, Greenhouse/nursery, Specialty 
Crops, Vegetables
    Size: 151-300 acres
    Comment:

  <bullet> Small-scale sustainable and diverse farming Must Be Top 
        Priority!

  <bullet> Support Localized agriculture.

  <bullet> End subsidies for factory farming.

  <bullet> End subsidies for herbicides, insecticides, and all other 
        poisons.

  <bullet> End subsidies for fuel.

  <bullet> End subsidies for biotechnology products.

    Listen to the weather reports! Read the science articles about 
global warming. Ag is the #1 contributor to climate change! Use your 
conscience!
    This is my comment.
    Thank You.
                                 ______
                                 
                         Comment of John Rabey
    Date Submitted: Wednesday, May 09, 2012, 3:17 p.m.
    City, State: Wesley Chapel, FL
    Occupation: Retired
    Comment: Being a senior myself I find it difficult to obtain 
housing, medications, and food. At least I receive my social security 
if nothing else. Please provide a safety net for those less fortunate 
than I.
                                 ______
                                 
                        Comment of Sarah Rabkin
    Date Submitted: Friday, May 18, 2012, 10:50 p.m.
    City, State: Soquel, CA
    Occupation: Teacher, Writer
    Comment: As an oral-history interviewer and editor involved in 
documenting the past 40 years of agriculture in my ag-rich region--and 
as an informed consumer of agricultural products--I have come to know 
all too well how much damage has been done to the health of people and 
land by ag that emphasizes heavy applications of chemical pesticides 
and fertilizers. Organic farmers proffer solutions we've barely begun 
to tap in this country. We need a healthy farm bill.
                                 ______
                                 
                          Comment of Adam Race
    Date Submitted: Tuesday, May 15, 2012, 10:46 p.m.
    City, State: Portland, OR
    Occupation: Student
    Comment: A $36 million cut to SNAP is not the way to go. The 
Committee should focus on writing a farm bill that creates economic 
opportunity and improves access to healthy, affordable food for all 
Americans.
                                 ______
                                 
                       Comment of Raymur Rachels
    Date Submitted: Friday, May 18, 2012, 9:43 p.m.
    City, State: Jacksonville, FL
    Occupation: Homemaker
    Comment: I am a mother of four and am extremely conscientious when 
it comes to trying to feed my family truly healthy food. Please don't 
allow any watering down of the organic standards, and absolutely don't 
allow any genetically modified ingredients to somehow creep into the 
organic label. Farm subsidies should go to the small farmers practicing 
sustainable agriculture. The major conventional agricultural producers 
are causing untold damage to our soil, our minds and what should be 
healthy bodies.
                                 ______
                                 
                        Comment of Sean Rackley
    Date Submitted: Saturday, May 19, 2012, 12:40 p.m.
    City, State: Martindale, TX
    Occupation: Teacher
    Comment: It is currently required that food be labeled 
appropriately for nutrition. Why is its source, natural or genetically 
grown, not also labeled legal requirement? It is imperative that people 
know where their food comes from. Please support a bill to require the 
labeling of GMO or GME foods by the FDA and manufacturers. Thank you!
                                 ______
                                 
                       Comment of Esther Racoosin
    Date Submitted: Friday, May 18, 2012, 2:49 p.m.
    City, State: Ithaca, NY
    Occupation: Mom
    Comment: The farm bill must continue to help smaller farmers who 
can provide food to consumers in their areas. Organic farms and 
sustainability in farming must be encouraged! I want to purchase 
produce from my local farmers!
                                 ______
                                 
                        Comment of Alison Radei
    Date Submitted: Saturday, May 19, 2012, 12:56 p.m.
    City, State: Tucson, AZ
    Occupation: Volunteer
    Comment: Our food system is broken! The Tucson Community as do many 
others, need a system that makes everyone healthy. Let our local 
farmers (and small farmers all over) make good food for us to eat! Stop 
consolidating! Let farmers in our hometowns work to bring down prices, 
have a fair marketplace. It would greatly reduce traffic and gas 
expenses. Letting small farmers back into the equation means good/
healthy/diverse food for everyone, lowering prices by enforcing things 
like agricultural reserves, stronger infrastructure, stronger 
communities, reducing pollution and improving biodiversity and 
conservation.
    I am a supporter of the Community Food Bank of Southern Arizona. 
Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs. Please make some good 
decisions to help the people of America. Set an example for the rest of 
the world. Our community needs you to make the right decisions and make 
food healthy and affordable again. There are so many benefits to 
letting the independent farmers back into the system, but at least keep 
the programs SNAP, TEFAP, and CSFP. Thank you for your consideration.
                                 ______
                                 
                        Comment of Carol Rahbari
    Date Submitted: Friday, May 18, 2012, 11:56 a.m.
    City, State: Ypsilanti, MI
    Occupation: Small Business Owner
    Comment: It's very important to me that our food be free of 
pesticides, hormones, and GMO's. This does not fit with big ag whose 
main focus is mass production and their bottom line. This has been 
horribly detrimental to our food supply.
                                 ______
                                 
                          Comment of Pat Rains
    Date Submitted: Friday, May 18, 2012, 11:48 p.m.
    City, State: Trenton, MO
    Occupation: Landowner/Homemaker
    Comment: Attention needs to be given to cleaning up food 
production, by giving more assistance and less harassment to organic 
farming. Big Ag and Monsanto are jeopardizing our health to line their 
own pockets, and it needs to stop!
                                 ______
                                 
                       Comment of A. Lynn Raiser
    Date Submitted: Friday, May 18, 2012, 10:14 a.m.
    City, State: Saint Johns, FL
    Occupation: Senior Information Developer
    Comment: I want Healthy food for my family that is grown using 
sustainable, eco-friendly methods. The farm bill should be supporting 
local farmers using these methods, not helping Big Ag and their 
frankenfoods!
                                 ______
                                 
                        Comment of Kelly Raisor
    Date Submitted: Friday, May 18, 2012, 5:14 p.m.
    City, State: Clarksville, IN
    Occupation: Unemployed
    Comment: Please consider the impact of not labeling GMO foods. 
Please indicate that all foods be labeled as organic or non organic, 
GMO or non GMO in the next farm bill. Please keep in mind that every 
man, woman & child has a birthright to choose what they consume, 
regardless of any law put into place regarding food safety. It is 
imperative that the people be allowed to decide for themselves if GMO 
or non organic foods will be a part of their diet. It is equally 
important that you each remember that you have the power to allow or 
deny the people of their voice in this matter. The people have trusted 
upon you to carry their voices to the farthest extent so that they may 
be heard & the people have spoken: label all GMO & non-organic foods. 
Thank you for your kind consideration.
                                 ______
                                 
                      Comment of Ravi Rajagopalan
    Date Submitted: Friday, May 18, 2012, 1:29 p.m.
    City, State: San Francisco, CA
    Occupation: Software Sales Engineering
    Comment: It is ridiculous that the farm bill continues to subsidize 
corporate mega-farms that make huge profits for unsustainable crop 
production. More money should be directed to small farmers and organic, 
local farming. This is an issue that is critical to the health of 
America. Do not let big farm lobbyists control the farm bill.
                                 ______
                                 
                        Comment of Suzanna Raker
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Calumet, MI
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: As a (certified) organic farmer, I believe strongly that 
healthy, accessible, affordable food should be available to all 
citizens. Most packaged products in our grocery and ``convenience'' 
stores have packaging worth more than the contents and are full of 
additives and other chemical components. Worse yet, toxic pesticides 
are allowed in increasing amounts in food products such as high 
fructose corn syrup and meats. Time to wake up and stop serving 
industrial agriculture.
                                 ______
                                 
                     Comment of Katherine Rakowski
    Date Submitted: Friday, May 18, 2012, 6:33 p.m.
    City, State: Dousman, WI
    Occupation: Student
    Comment: It is absolutely crucial to protect our small farms and 
farmers. We need to protect families, children, elderly, and people of 
low-incomes. No more subsidies and loop-holes for the largest companies 
in this country and around the world.
                                 ______
                                 
                         Comment of Lisa Ramaci
    Date Submitted: Friday, May 18, 2012, 5:28 p.m.
    City, State: New York, NY
    Occupation: Self-Employed
    Comment: I have watched in dismay as over the years corporate 
agribusiness has gotten more and more of a stranglehold on our 
regulatory system and our political leaders, while receiving billions 
in subsidies for crop and revenue insurance policies. I have watched a 
corporate thug entity like Monsanto genetically engineer seed into 
growing Frankenfoods, and then pursue in court hundreds of lawsuits 
against farmers to force them to stop saving seeds (a common practice 
used for thousands of years, but Monsanto forbids it, requiring farmers 
to buy new seed from the company every year). I have read the ever-
growing list of chemicals added to the ``foods'' we ate expected to 
eat. And I realize that for those of us who do not want to ingest these 
poisons, a stronger stance on organic farming must be taken.
    Therefore, I am asking you to please vote to support the following:

    (1) the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286);

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs;

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236);

    (4) Maintaining the EQIP Organic Initiative.

    While organic farming will never have the clout or power of 
corporate agribusiness, the playing field should at least be a bit more 
level. Thank you.
                                 ______
                                 
                      Comment of Julianne Ramaker
    Date Submitted: Friday, May 18, 2012, 2:37 p.m.
    City, State: Bend, OR
    Occupation: Office Manager
    Comment: I support the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286)
    For Congress to consider cutting funding to vital programs such as 
nutrition, conservation and support for organic and sustainable 
agriculture is absolutely wrong and totally out of touch with what the 
American people want. I'm also certain that it is right in step with 
the desires of the commercial agribusinesses.
    I'm asking that you stand for the American people, sustainable 
organic farming and that you fund conservation programs, such as the 
Conservation Stewardship Program, while making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
                                 ______
                                 
                        Comment of Maja Ramirez
    Date Submitted: Friday, May 18, 2012, 9:14 a.m.
    City, State: Chicago, IL
    Occupation: Master Food Preserver Intern
    Comment: I was a Master Gardener for 14 years, and a Master Food 
Preserver intern. I happen to know of the research showing that more 
densely planted corn and soybeans has contributed to changing the 
climate, making our area more humid. I loathe the runoff of 
agricultural fertilizers into the Gulf, and the leaching of pesticides 
into groundwater everywhere. Agribusiness and CAFOs have to be stopped, 
and small and new farmers helped. We deserve safe food!
                                 ______
                                 
                       Comment of Patricia Ramos
    Date Submitted: Friday, May 18, 2012 12:33 p.m.
    City, State: Ware, MA
    Occupation: EMT
    Comment: Please help us U.S. citizens and hear our voices. We need 
our agricultural laws to have our health held first and foremost before 
anything else is considered.
                                 ______
                                 
                        Comment of Sylvia Ramsay
    Date Submitted: Friday, May 18, 2012, 12:39 p.m.
    City, State: Chicago, IL
    Occupation: Retired
    Comment: Please act in the interest of the taxpayer and the smaller 
farms. Do not just give money away needlessly as it is not your money. 
Scrutinize every subsidy and insurance payment to ensure it is 
appropriate and necessary.
                                 ______
                                 
                       Comment of John Ramsburgh
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Ann Arbor, MI
    Occupation: Teacher
    Comment: First, consumers should have the right to know whether the 
ingredients in their foods have been genetically modified. If the 
agriculture industry is confident in the safety of genetically modified 
products, they should have no qualms sharing that information.
    Second, farmers who do not use patented or genetically modified 
seeds in their production should not face lawsuits or intimidation from 
the big ag industries. On the contrary, it is the big ag companies that 
should face penalties for the indiscriminate dispersal of their seeds.
    Finally, more needs to be done to develop local food economies, 
since this is clearly where customers increasingly want to go. Without 
the infrastructure (processing plants, delivery mechanisms, 
distribution and consumer information), these local job creators will 
not be able to grow their businesses. The USDA and our Federal agencies 
are missing a great opportunity to spur investments, and create jobs, 
in our local economies.
                                 ______
                                 
                       Comment of Brandon Ranauro
    Date Submitted: Friday, May 18, 2012, 6:12 p.m.
    City, State: Lakeland, FL
    Comment: Hi there. I believe that small and local farmers who bring 
us truly healthy food are the ones that should be supported with the 
farm bill. I believe money should be put into sustainable farming 
practices that will make America thrive and improve our health. Many 
other Americans want this. The small scale and sustainable farmers are 
the ones that need this program. Not big agriculture practices who 
don't need the money and that's practices harm our health and the 
environment. It really alarms me to see that they get all the help when 
the small scale and family farmers are the ones that need it the most. 
It doesn't make sense to continue on with practices that are doing us 
any good. Congress needs to get in touch with the values of the 
American people. The real farmers of the country who want to provide us 
with good and healthy foods. It's about time to support what should be 
supported.
                                 ______
                                 
                       Comment of Katherine Rand
    Date Submitted: Thursday, May 03, 2012, 5:44 p.m.
    City, State: Providence, RI
    Occupation: Student, Research Assistant
    Comment: To whom this may concern,

    I am writing to express my interest in your involvement in the 2012 
Farm Bill. I believe your support of certain decisions in the creation 
of this bill is critical. First, there needs to be a focus on de-
incentivizing the large, economically and environmentally unsustainable 
industrial farming practices. There needs to be a greater focus on 
regional and local farming development and better connecting farmers 
with their community. We need to incentivize younger people to become 
farmers and/or become more involved with how their food is produced, 
otherwise the profession will give way to machine dominated plantation 
production.
    I also believe it is very important to improve the School Lunch 
system, emphasizing nutrition. The families who largely participate in 
this program are those that are on food stamps and thus only have 
access to cheap food. With our current agricultural system in which 
cheap food is often least nutritional, these children are already 
usually exposed to less healthy food. Currently, with the School Lunch 
program as a dumping group for food, children lack access to the 
nutrition that they need to experience proper development and lead 
healthy lives.
    I hope that you will support these parts of the farm bill that I 
find to be most critical. Thank you.

Katie Rand.
                                 ______
                                 
                        Comment of Eliza Randall
    Date Submitted: Friday, May 18, 2012, 2:22 p.m.
    City, State: Los Angeles, CA
    Occupation: VFX Supervisor
    Comment: I maintain a small organic farm for my own food in mid-
city Los Angeles. I am strongly in support of fostering more small and 
mid scale farmers who provide organic and non-agronomy scale food as 
this is the cleaner and healthier route as well as a more sustainable 
food model for the health of both people and our economy. Make farming 
a livable wage for the common person, not only a corporate scale farm 
model which compromises health and safety of all.
                                 ______
                                 
                      Comment of Crystal Randallo
    Date Submitted: Tuesday, April 03, 2012, 8:56 a.m.
    City, State: Cloquet, MN
    Occupation: Eligibility Specialist
    Comment: The SNAP program does not currently have an asset test/
limit. I determine eligibility for this program and I taken many 
applications for single adults who are not employed and have over 
$75,000.00 in the bank. They either live with their parents for free or 
a significant other. Most are eligible for $200 in benefits. While 
someone trying to make a living on minimum wage may be lucky if they 
are eligible for $16 a month. If you make any changes to the program, 
please address this issue. Thanks!
                                 ______
                                 
                         Comment of Earl Ranney
    Date Submitted: Saturday, May 12, 2012, 3:20 a.m.
    City, State: Upland, CA
    Occupation: Retired Steel Worker
    Comment: I've lost all hope that this will sway any member of 
Congress, but I like to have my say, so I want help for the little 
farmer, and no help for the big farmer. They are rich and do not need 
any help.
            Thanks,

E.R.
                                 ______
                                 
                        Comment of Neville Rapp
    Date Submitted: Thursday, May 17, 2012, 11:25 a.m.
    City, State: St. Louis, MO
    Occupation: Biochemist
    Comment: Dear House Agriculture Committee:

    We want a safety net for farmers, But we want to restore the link 
between taxpayer-supported subsidies for crop insurance and 
conservation compliance protections. This is what we want you to do:

  <bullet> Require Conservation Compliance for Taxpayer Subsidized Crop 
        Insurance Programs in the 2012 Farm Bill to restore the link 
        between soil and water conservation and taxpayer benefits to 
        farmers. This would ensure that all new crop and revenue 
        insurance or other risk management programs that make up a 
        safety-net for farmers do not incentivize environmental 
        destruction and it helps protect America's investment in our 
        farmland and farmers.

  <bullet> Set reasonable limits on taxpayer-funded crop insurance 
        subsidies to help keep costs from continuing their upward 
        spiral.

  <bullet> Help grow jobs by retaining programs like the Value-Added 
        Producer Grants Program. Guarantee $30 million of mandatory 
        funding per year. VAPG provides seed money to help farmers 
        innovate in agriculture and create jobs while securing a 
        sustainable path to market-based farm profitability.

  <bullet> Help grow local farm economies and support healthy food in 
        schools by providing flexibility for states to use existing 
        food procurement programs to purchase fresh, healthy food from 
        local farmers and ranchers.

  <bullet> Retain effective conservation programs in the farm bill that 
        deliver clean water and wildlife benefits.

  <bullet> Grow farmers through mandatory funding for the Beginning 
        Farmer and Rancher Development Program. The National 
        Sustainable Agriculture Campaign recommends $30 million in 
        mandatory funding. With an aging farm population, now is the 
        time to invest in the future of American agriculture by 
        nurturing new agriculture start-ups.

  <bullet> Secure our food future and fund the Organic Agriculture 
        Research and Extension Initiative at $30 million per year in 
        mandatory funding. Investment in agricultural research is vital 
        to continued productivity and innovation in growing and diverse 
        sectors of American agriculture, such as organic agriculture.

            Sincerely yours,

Neville Rapp.
                                 ______
                                 
                        Comment of Lisa Raschke
    Date Submitted: Friday, May 18, 2012, 11:31 a.m.
    City, State: Raleigh, NC
    Occupation: Mother, Wife, and Writer
    Comment: Please, please stop the subsidies for corn. This is just 
like tobacco. Yes, it does cause serious health and environmental 
problems. Please stop making it about money, and choose the welfare of 
the American people. Thank you.
                                 ______
                                 
                   Comment of Judith Raskin Rosenthal
    Date Submitted: Friday, May 18, 2012, 8:54 p.m.
    City, State: New York, NY
    Occupation: Art Director/Art Therapist
    Comment: 100 years ago my father became an organic farmer. He and 
my mother designed a house with coal heating. My mother and father 
designed an organic compost can. I admire farmers.
                                 ______
                                 
                        Comment of Sarah Rather
    Date Submitted: Thursday, May 10, 2012, 3:31 a.m.
    City, State: Capitola, CA
    Occupation: Disabled
    Comment: Support small farm and family farming. Local farming too. 
Please spread the money around--we need to get back to healthy farming 
and allowing programs such as food stamps to help our struggling 
Americans.
    Farm bills should not support industrialized corporate farming, but 
rather the local farmers whom help keep our planet healthy by using 
methods that are Earth friendly.
                                 ______
                                 
                        Comment of Donna Ratliff
    Date Submitted: Sunday, March 18, 2012, 9:13 p.m.
    City, State: Lithia, FL
    Comment: I have grown my own food. That is the best way to live. I 
believe in organic natural foods even milk products. People since the 
beginning of time have survived on this forever. I oppose the use of 
additives in all foods. This is unhealthy and causes illness. I think 
you should leave Amish people alone! They are living like humans 
should! I support Amish and whole natural foods even dairy! The human 
race has survived on these foods forever!
                                 ______
                                 
                      Comment of Teresa Raulerson
    Date Submitted: Friday, May 18, 2012, 3:05 p.m.
    City, State: Canton, NC
    Producer/Non-producer: Producer
    Type: Fruits, Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: Please keep the small farmer in mind when drafting this 
bill. The huge ag companies may produce much of the food in this 
country, but the smaller farms produce the best quality food.
                                 ______
                                 
                      Comment of Maureen Rawlings
    Date Submitted: Friday, May 18, 2012, 3:12 p.m.
    City, State: Olympia, WA
    Occupation: Retired Teacher
    Comment: I want to eat organic. I want everyone to be able to feed 
their children organic food at reasonable cost. I support sustainable, 
organic agriculture where farmers are safe as they work and consumers 
have the right and opportunity to eat healthy food. I support family 
farms. Produce from non-organic farms does not even have a taste, not 
to mention little food value nutritionally and big health risks. Please 
support organic, sustainable healthy farming practices.
                                 ______
                                 
                          Comment of Cindy Ray
    Date Submitted: Friday, May 18, 2012, 7:48 p.m.
    City, State: Soap Lake, WA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: Please redo the farm bill. I am a mid to small farmer in 
Central Washington. We see our neighbors with thousands of acres buying 
up the smaller farms. They were able to build wealth with the current 
farm subsidy programs. We need to change those programs to benefit 
small producers to stay in business. The food supply will be much safer 
with smaller producers.
                                 ______
                                 
                         Comment of Darryl Ray
    Date Submitted: Sunday, May 20, 2012, 10:22 a.m.
    City, State: Castro Valley, CA
    Producer/Non-producer: Producer
    Type: Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: Phase out subsidies especially for large factory farms and 
for corn and ethanol. Be more supportive of small farms and organic 
farms. Support permaculture, biodiversity and conservation practices.
                                 ______
                                 
                         Comment of Hilary Ray
    Date Submitted: Friday, May 18, 2012, 2:18 p.m.
    City, State: Klondike, TX
    Occupation: Homemaker
    Comment: Don't cut $4 million from organic research funding or 
funding to support Beginning Farmers. I support Organics and expect you 
to as well! We are poisoning ourselves and our environment which will 
lead to unsustainable lifestyles. Please make a positive impact and 
urge an increase in organic productions!
                                 ______
                                 
                         Comment of Katrina Ray
    Date Submitted: Saturday, May 19, 2012, 9:53 p.m.
    City, State: Austin, TX
    Occupation: Stay-at-Home Mom
    Comment: Our food source is vital to the well-being of all of us 
and the world we all share. Without our health and our planets health 
we are nothing. It is crucial to take the actions necessary to use 
organic, sustainable farming. For ourselves and our children and the 
generations to follow.
                                 ______
                                 
                          Comment of Linda Ray
    Date Submitted: Friday, May 18, 2012, 9:15 p.m.
    City, State: Gresham, OR
    Occupation: Retired School Employee
    Comment: This country needs its family owned and operated farms 
across America. These farms take pride in the job they do and in their 
contribution to the nation's food supply. My uncle became an Idaho 
potato farmer after he returned from World War II. He spent his entire 
life providing a quality product for America's tables. Too many of the 
big agribusiness conglomerates are only interested in the bottom line 
and are willing to cut corners in order to increase profits. Their 
bottom line is money and Not Food Safety. Consumers have a Right to 
know that the food products they put on their tables Will Not Harm 
their family's health!
    If large agribusinesses are allowed to be run with no expectations 
of safe practices and quality, our food supply will be in great peril! 
Large companies do Not Mean `Quality,' it means more room for error in 
pursuing ``cheap production!'' Be Sure To Keep our smaller, independent 
farmers an important part of our local food supply!
                                 ______
                                 
                          Comment of Susan Ray
    Date Submitted: Friday, May 18, 2012, 12:30 p.m.
    City, State: Saugerties, NY
    Occupation: Writer/Film Director
    Comment: In the best of all worlds we'd be aiming towards 100% 
organic farming. We need small local farms to be supported, for the 
quality of the produce, for the savings in avoiding fuel-consuming 
long-distance transport, in order to help nurture a strong middle class 
and strong local communities.
                                 ______
                                 
                         Comment of Turner Ray
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: Pueblo, CO
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Please listen to these folks. They really know what 
they're talking about. Corporate health can no longer be at the expense 
of the land, water and the people's health. Now is the time to create 
meaningful legislation. Please bless America with a sound set of 
policies.
            Thank you,

Turner.
                                 ______
                                 
                         Comment of Carl Razza
    Date Submitted: Friday, May 18, 2012, 10:47 a.m.
    City, State: Flemington, NJ
    Occupation: Regional Sales Manager
    Comment: It's time to end subsidies on mega farms growing 
commodities. No more support for corn ethanol and soybean biodiesel. 
More support is needed for the small family farm. More support is 
needed for fresh locally produced foods in inner cities.
                                 ______
                                 
                      Comment of Patricia Reardib
    Date Submitted: Tuesday, May 01, 2012, 6:28 p.m.
    City, State: Worcester, MA
    Occupation: Retired
    Comment: As the manager of an inner city food pantry I see the 
number of people seeking help increasing each month. We will make the 
trips to the food bank, store it, distribute it to those who come to us 
for help, and complete all the necessary paper work, but we need you to 
make the food available. Sad to say, there is hunger in Central 
Massachusetts.
                                 ______
                                 
                        Comment of Sandy Reavey
    Date Submitted: Sunday, May 20, 2012, 1:52 p.m.
    City, State: Denver, CO
    Occupation: Unemployed
    Comment: To protect our future health, we need to stop GMO's in our 
food production! We need cleaner air, water, and land. Stop fracking as 
well and do not put the pipeline across our precious farmlands.
                                 ______
                                 
                        Comment of Laura Record
    Date Submitted: Saturday, May 19, 2012, 5:29 a.m.
    City, State: Sacramento, CA
    Occupation: Student
    Comment: I am 28 yrs. old, and I am a dancer, a marathon runner, a 
Montessori preschool teacher and art student at UC Davis. I cannot 
express the importance to me of this bill and the future investment in 
and sustainment of the local, organic agriculture in my area of No. CA. 
As a conscious consumer and educated individual I care about not only 
what I eat but how it was grown and the impact of it's production on 
the soil and environment. Support for a farm bill that protects our 
natural resources while investing in the local economies and providing 
quality, untreated (organic) foods will in the long run prove most 
beneficial to the general health and well being of our nation's people 
and our natural resources. Please allow for these small but monumental 
strides in western agriculture to take place by granting funding and 
freedom to local, organic, and sustainable agricultural movements. This 
is the hope for our future, and as a young American, I speak from my 
heart when I say I care about the future of the natural environment and 
the health of our people. Good health comes from good nutrition, which 
cannot be grown through monocropping. Please consider these logical and 
meaningful points when writing the new bill. The future generations of 
young Americans, and myself, thank you.
            Sincerely,

Laura Record,
Student, UCD.
                                 ______
                                 
                       Comment of Carmen Redding
    Date Submitted: Friday, April 27, 2012, 12:53 p.m.
    City, State: Baltimore, MD
    Occupation: Lab Manager/Research Assistant in a University 
Neuroscience Lab
    Comment: Our planet is slowly being poisoned by agribusiness. We 
need more organic and sustainable farming. Corporate farming is 
destroying our world, slowly, bit by bit.
    Profit without considering consequences is destructive ultimately.
                                 ______
                                 
                          Comment of Ann Redig
    Date Submitted: Friday, May 18, 2012, 1:44 p.m.
    City, State: Rochester, MN
    Occupation: Religious Ministry
    Comment: Support, subsidize the family farmer, beginning farmers 
and rural communities. Support, subsidize organic farming and use of 
local grown in school and other institutions. Put a limit on subsidies 
and subsidies for crop insurance to corn, soybean and other cash crop 
farmers who don't need it. Find ways to help small and beginning 
farmers to have genuine assistance (not just dollars) to succeed. Do 
not cut school food or other food programs in order that every child 
continues to have good nutrition to grow into productive contributing 
citizens who are the future of our country.
                                 ______
                                 
                 Joint Comment of Robert & Kathy Redig
    Date Submitted: Saturday, May 19, 2012, 9:28 a.m.
    City, State: Winona, MN
    Producer/Non-producer: Producer
    Type: Field Crops, Forestry
    Size: 50-150 acres
    Comment: Don't allow insurance to be used as guaranteed profit for 
corn, soybean, and cotton. Extend it to other crops. Concentrate on 
food for needy and conservation. No insurance for farmers not following 
best conservation practices or destroying those already in place.
                                 ______
                                 
                       Comment of Monique Redman
    Date Submitted: Friday, May 18, 2012, 12:23 p.m.
    City, State: McDonough, GA
    Occupation: Independent Contractor
    Comment: It is time for Real Reform:

  <bullet> We need incentives to preserve and increase regional healthy 
        food production;

  <bullet> Fund education and provide financial support to generate 
        growth and employment in the healthy food retail sector that 
        enables store owners to stock stores with better choices;

  <bullet> Also funding for pilot programs that bring together 
        community groups, schools, non-profits and health care 
        providers that focus on reducing childhood obesity and 
        hospitalization related to diabetes.

    This is one of America's biggest environmental issues and this now 
upside down food system needs reformation. Help our farmers improve the 
environmental condition of their farms so they can sustain our future.
                                 ______
                                 
                       Comment of Marilyn Redwine
    Date Submitted: Friday, May 18, 2012, 3:16 p.m.
    City, State: Portland, OR
    Occupation: Retired
    Comment: Agribusiness is big business and needs no more assistance 
from the American public. The American public needs assistance to 
purchase their food. This is a disgrace.
                                 ______
                                 
                         Comment of Nancy Reeck
    Date Submitted: Friday, May 18, 2012, 12:30 p.m.
    City, State: St. Paul, MN
    Occupation: Farmer's Daughter
    Comment: The majority of my concerns with taxpayer funded programs 
like the farm bill is that so much of the public money is given to 
giant corporations instead of benefiting individuals on the ground. 
Crop insurance companies should not benefit from taxpayer subsidies 
while at the same time influencing laws that protect them from paying 
settlements. Likewise energy/utilities conglomerates ought to pay for 
their investments instead of getting tax credits and tax windfalls that 
zap public revenue. In short, consider serving the actual farmers and 
don't give money to multinational corporations.
                                 ______
                                 
                         Comment of Anita Reed
    Date Submitted: Friday, May 18, 2012, 11:52 a.m.
    City, State: Clear Lake Shores, TX
    Occupation: Business Owner
    Comment: We must change the direction of food and health now. I eat 
primarily organic food because of my great distrust of corporate 
products in our food supply.
                                 ______
                                 
                        Comment of Geoffrey Reed
    Date Submitted: Friday, May 18, 2012, 12:08 p.m.
    City, State: Bridgeport, CT
    Occupation: Electronic Tech
    Comment: The health and Welfare of the United States,(and the 
world) rely on a healthy small farms, and family farming sector in the 
United States and an end to the abuses of Huge Agribusinesses 
(especially multinationals that insist on developing unsafe GMOs and 
controlling world markets!
                                 ______
                                 
                          Comment of Jane Reed
    Date Submitted: Friday, May 18, 2012, 6:03 p.m.
    City, State: Hotchkiss, CO
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 1,000+ acres
    Comment: The health of the people should be put before that of 
corporations, which were originally formed to protect the people. Have 
you ever seen anyone up close die of cancer? I have, from benzene 
poisoning due to fracking polluting the person's drinking water. We 
need environmental regulations big time. Genetic engineering has no 
long term studies, therefore should at least be labeled so we have a 
choice of whether to eat something we know nothing about or not. Please 
at least label, if not get rid of it.
                                 ______
                                 
                          Comment of Lois Reed
    Date Submitted: Tuesday, May 08, 2012, 8:17 a.m.
    City, State: Haskell, OK
    Occupation: Retired--Full-Time Volunteer with Ezra House
    Comment: I grew up on a farm in eastern OK. We had cattle, hogs, a 
broiler house, strawberries, a hay crop, etc. I know the hard work and 
dedication it takes to grow food for America. I also worked in a 
grocery store for 15 years and witnessed firsthand families struggling 
to budget their food dollars. The elderly broke my heart. Some would 
pick up food and look at it and then put it back over and over. As a 
Christian I did everything I could to help them make wise choices 
pointing out sales and helping mothers with recipes for inexpensive 
cuts of meat. I also saw the waste that every grocery store produces. 
This inspired my husband and I to open More than Bread pantry in 
Haskell, OK. We serve approximately 150 needy families each month in 
our area. Without the USDA commodities we would not be able to continue 
with our mission to make sure everyone has food in our area. We have 
seen the need double and the available food decrease. Please help 
however you can to continue providing support for farmers and for the 
USDA food program. These food items are just filling basic needs of 
real Americans. We have been an agency with the Food Bank of Eastern 
Oklahoma for 20 years and have never seen as much need as we have now. 
With your help pantries all over eastern OK will have something to give 
those who ask for our help. God Bless.
                                 ______
                                 
                        Comment of Rebecca Reed
    Date Submitted: Saturday, May 19, 2012, 7:02 p.m.
    City, State: Wellesley, MA
    Occupation: Nurse Practitioner
    Comment: I am a family nurse practitioner who sees the consequences 
of poor nutritional practices daily. We need to support organic and 
sustainable farmers, and Not support industrial agriculture as usual 
with the farm bill.
    Thank you.
                                 ______
                                 
                         Comment of Robin Reed
    Date Submitted: Friday, May 18, 2012, 7:18 a.m.
    City, State: Irvine, KY
    Producer/Non-producer: Producer
    Type: Bioenergy, Field Crops, Specialty Crops, Vegetables, Other
    Size: 50-150 acres
    Comment: I have been selected for a grant to build a greenhouse 
this year to extend the growing season in KY and will build it when the 
time allows this season. What I really need is an upgrade to the 
internet or high speed broadband in my area. BELK and Altius are 
supposedly bringing high speed to my area but I have not seen any 
improvements or notifications lately. High speed Internet is necessary 
for my farming business and multi-farm CSA to succeed in this day of 
information. And I would surely like to see it for myself and other 
farmers in my area. I have always been on dial up (it is affordable) 
and at 24 KB/second download speed it is not possible to access some 
sites for my farming operation in real time. Informational video and 
streaming clips are impossible to access.
    Thank you for your time.

Robin Reed.
                                 ______
                                 
                       Comment of Michelle Reers
    Date Submitted: Friday, May 18, 2012, 9:51 p.m.
    City, State: Tigard, OR
    Occupation: Student--Botany/Horticulture
    Comment: I share the concerns of many of the people of this nation. 
Our concerns are over the safety of our food. They are around how the 
land is managed and the continued availability of fresh healthy food 
being available to everyone.
    As representatives of our nation I ask you to support safe 
sustainable farming. Please do not allow pressures from large 
corporations who have only profit in mind to make choices that are 
vital to the health of every person in our nation.
    Your decision will have long lasting consequences. Consequences 
that eventually will affect us all, you, me, and our neighbors.
    Please support farmers; please support the people of this nation.
    Thank you.
                                 ______
                                 
                       Comment of Rebecca Rehorn
    Date Submitted: Friday, May 18, 2012, 4:59 p.m.
    City, State: Port Jervis, NY
    Occupation: Health Practitioner
    Comment: The people of this nation want Real food with Real 
nutrients (organic) and we want farmers to be able to make a fair 
living wage for growing it!
                                 ______
                                 
                     Comment of Christine Reichert
    Date Submitted: Saturday, May 19, 2012, 5:32 p.m.
    City, State: Milwaukee, WI
    Occupation: Wellness Coach
    Comment: Absolute protections of conservation measures and organic 
farming must happen. Which means subsidies to large scale chemical 
agriculture, commodities distribution to schools, food pantries, etc. 
must stop. National security depends on clean water, air, soil and real 
food. CSA family farms are the way to go! Aldo Leopolds' land ethic 
must be internalized and taught to everyone!
                                 ______
                                 
                         Comment of Debra Reid
    Date Submitted: Friday, May 18, 2012, 11:24 p.m.
    City, State: San Diego, CA
    Occupation: Social Work
    Comment: Stop farm subsidies; protect small farmers; protect the 
environment by banning harmful pesticides, only using ones that have 
been thoroughly tested; support organic farming; eliminate genetically 
engineered foods.
                                 ______
                                 
                        Comment of Audrey Reida
    Date Submitted: Wednesday, May 09, 2012, 7:35 p.m.
    City, State: Arivaca, AZ
    Occupation: Teacher
    Comment: Working with children in a Title I school allows me to see 
first-hand how hunger is managed by low-income families and much of our 
school community depends on the local food bank. These are good 
programs helping good people. They should not be cut.
                                 ______
                                 
                        Comment of Thomas Reidy
    Date Submitted: Friday, May 18, 2012, 5:19 p.m.
    City, State: Seattle, WA
    Occupation: Disabled
    Comment: With the world hunger crisis and overpopulation out of 
control, isn't it time we started paying more attention to the distant 
future, the fertile lands at our disposal, and management of the 
longevity of These processes?
                                 ______
                                 
                        Comment of Cheryl Reiff
    Date Submitted: Friday, May 18, 2012, 2:40 p.m.
    City, State: Jamul, CA
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: Protect the people, not corporate greed. It's your job. 
People elected you. If you keep destroying us in favor of your pockets 
there won't be any economy.
    Subsidies to oil and other mega wealthy corporations are the ones 
that need to be cut. It is nothing short of evil to cut things that 
protect our health while subsidizing things that hurt or health.
                                 ______
                                 
                       Comment of Jeanne Reiland
    Date Submitted: Friday, May 18, 2012, 12:54 p.m.
    City, State: Eden Prairie, MN
    Occupation: Sales
    Comment: I had the privilege of growing up on a small family farm. 
My father followed best practices of rotating his crops, leaving one or 
two fields to rest, using composting and other natural resources to 
give back to the fields. We grew up with fresh eggs, grass fed beef, 
pastured pork, fresh vegetables and fruits in season--exactly what we 
want people to eat now. My father was an honest man and at that time in 
his life would talk about larger farmers taking monies that weren't due 
them, because it is there when you need it.
    Our government needs to support the small farmer, the farmer that 
is nurturing the soil, protecting the environment, and growing food 
that will improve the health of our residents, not fill them with 
chemicals. And, we need to stop wasting money on subsidies for those 
who do not need nor deserve that money. Please, pass this farm bill, 
and do not take away food stamps for the needy.
                                 ______
                                 
                        Comment of Nick Reilingh
    Date Submitted: Friday, May 18, 2012, 5:11 p.m.
    City, State: Kingston, NY
    Occupation: Box Office Manager
    Comment: As a concerned citizen with interest in promoting healthy 
and sustainable agricultural practices, I fully endorse all provisions 
of the Local Foods, Farms and Jobs Act (H.R. 3286), The Conservation 
Stewardship Program, The Beginning Farmer and Rancher Opportunity Act 
(H.R. 3236), and the EQIP Organic Initiative.
    The last few farm bills, I believe, have been detrimental to the 
health and prosperity of our country. By subsidizing corn and other 
industrial crops, we are helping to support gigantic industrial farms 
and chemical corporations who litigate against the small family farms 
our farm bill should be supporting.
    There's more. The immense corn surplus drives down the cost of high 
fructose corn syrup which makes sweeteners Much less expensive than 
natural cane sugar. The surplus of sugars in our food supply 
contributes to the obesity epidemic. Many other unhealthy surpluses 
exist similarly. When comparing our food supply with those of more 
healthy countries overseas, surpluses of unhealthy food is a key 
differentiating factor.
                                 ______
                                 
                    Comment of Donna Segreti Reilly
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: Winthrop, MA
    Occupation: Retired Social Worker
    Comment: I'm sick about worrying about GMO's and processed foods. 
In Europe they keep the GMO's out of the country. There is far less 
cancer, obesity, diabetes. Big Agriculture is Killing us with their 
Round Up and all the other things they put in our soil.

Donna Segreti Reilly,
Winthrop, MA.
                                 ______
                                 
                        Comment of Erica Reilly
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: Medfield, MA
    Occupation: Mother
    Comment: Please keep our food safe for our families. Keep chemicals 
and genetic modification away from our food. It is imperative for our 
families well--being!
                                 ______
                                 
                        Comment of Joanne Reilly
    Date Submitted: Saturday, May 19, 2012, 2:44 p.m.
    City, State: New Smyrna Beach, FL
    Occupation: Teacher
    Comment: There is a great need for this country to return to 
smaller farms run by families using healthy practices to insure that 
the products grown have the necessary natural nutrients needed to 
sustain healthy populations and to use practices that do not destroy 
the environment and all the natural species that are required for a 
healthy ecosystem. Using organic methods of farming would reduce the 
costs of chemical fertilizers & insecticides as well as herbicides. 
Long term use of chemicals have a negative impact on the environment 
and on the humans in contact with them. The health benefits of eating 
organically grown produce is of great importance. Thank you for hearing 
my suggestions. Now make it happen.
                                 ______
                                 
                         Comment of Jackie Reis
    Date Submitted: Tuesday, April 24, 2012, 10:57 a.m.
    City, State: White Bear Lake, MN
    Occupation: Philanthropy Consultant
    Comment: We Must have a strong nutrition title in the farm bill--
Please protect the SNAP and TEFAP programs! Our local food shelf and 
people in our community rely on these programs!
                                 ______
                                 
                        Comment of Matthew Reis
    Date Submitted: Thursday, April 19, 2012, 3:11 p.m.
    City, State: Los Angeles, CA
    Occupation: Office Manager
    Comment: The benefits of Organic farming, including better human 
health, better planet health, and better economic health, far outweigh 
the need to support industrial farming. I want my tax dollars going 
toward clean, sustainable, Organic agriculture.
                                 ______
                                 
                      Comment of Shirley Reischman
    Date Submitted: Friday, May 18, 2012, 5:35 p.m.
    City, State: Cincinnati, OH
    Occupation: Homeopath
    Comment: It's time the government put the health and freedom needs 
ahead of those of agribusiness. The student lunch program needs a 
drastic overall so our children grow up healthy, and farm subsidies 
need to go to the small family farms that struggle to keep going rather 
than the largest and wealthiest land holders. Factory farms and mono 
cultures are ruining our land and ruining our health. It's time for a 
major change.
                                 ______
                                 
                         Comment of Amy Rempas
    Date Submitted: Friday, May 18, 2012, 11:56 a.m.
    City, State: Chicago, IL
    Occupation: Office Manager
    Comment: You are what you eat. Would you rather be a product of an 
assembly line manipulated by machinery or would you rather be from the 
Earth as nature intended. Genetically modified = mutant. What happened 
to all of the bees? How's that genetically modified corn and soybeans 
working out for humans? When does greed take a back seat to doing what 
is right in this country? All the money in the world can't save your 
ass from dying a horrible death from poisonous food.
                                 ______
                                 
                       Comment of Stephanie Renea
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: Austin, TX
    Occupation: Real Estate Investor
    Comment: It is time for real reform that puts consumers instead of 
big business interest first. Our government was not formed by our 
forefathers to represent big business. But that is what it has turned 
into. You as a representative can be the change to fulfill that 
intention of those great beings that started our country and offered 
service to government. Like George Washington, Benjamin Franklin. It is 
your duty to change the course for future generation may never exist if 
big business continues to move toward the demise of freedom of simple 
things in life like clean air and water and food that isn't augmented 
to serve Monsanto and other careless organizations. Do the right thing 
and forget about chasing money. Otherwise Freedom will no longer be an 
option. This country will be owned and run by dictators. Thank you for 
taking your time to hear my cry and my greatest wish.
                                 ______
                                 
                        Comment of Ann Rennacker
    Date Submitted: Friday, May 18, 2012, 1:58 p.m.
    City, State: Ft. Bragg, CA
    Occupation: Library Tech
    Comment: We need more local food security, and less big 
agribusiness that puts local food at risk. No GMOs and fewer 
pesticides. More organics, and better food labeling.
                                 ______
                                 
                         Comment of Sharon Repp
    Date Submitted: Friday, May 18, 2012, 3:19 p.m.
    City, State: Novato, CA
    Occupation: Entrepreneur
    Comment: It's about the health of our nation. Period.
    Let us know! Period.
    We are allowing our universe to be completely polluted. Watch the 
icky trickle down for your fellow man. Manipulated crops . . . poor 
food . . . poor health . . . sky rocketing health cost . . . We Are Not 
On This Earth To Be A Science Project For Greed. There is enough for 
need . . . but not enough for greed in this precious world of ours.
                                 ______
                                 
                       Comment of Terri Respalje
    Date Submitted: Thursday, May 03, 2012, 4:33 p.m.
    City, State: Waupun, WI
    Occupation: Food Pantry Manager
    Comment: I manage a food pantry and we are indebted to the people 
who decided or were born into the wonderful and hard work of farming. I 
see the need every day as to why we need to support and keep programs 
up and running that help feed those who are struggling, many will fall 
by the wayside if pressed between food or rent, the goal is to keep 
people from having to make this choice. The ones who come to food 
pantries are not evil monsters looking for any excuse to abuse the 
system they are people in a time of confusion and sadness that need 
more encouragement and help than ever.
                                 ______
                                 
                          Comment of Linda Rex
    Date Submitted: Friday, May 18, 2012, 11:41 a.m.
    City, State: Boynton Beach, MI
    Occupation: Retired
    Comment: You must stop giving my money to the filthy industrial, so 
called, food companies. They are giving us food with zero nutrition, 
covered in chemicals and processed to death. You are killing us and 
must be stopped. We want to help organic, clean, healthy farms. Only. 
Stop taking money from the industrial farms for your campaigns and do 
the right thing for once.
                                 ______
                                 
                        Comment of David Reyher
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Delavan, WI
    Occupation: Retail Sales and Support
    Comment: We need support for small organic farmers, not the massive 
farms using biotech seeds and chemicals. These large biotech farms are 
destroying our land with chemicals and our crops are being contaminated 
with genetically engineered seed. This is not sustainable farming.
                                 ______
                                 
                       Comment of Pilar Reynaldo
    Date Submitted: Friday, May 18, 2012, 11:20 a.m.
    City, State: Los Angeles, CA
    Occupation: Decorator
    Comment: I feel strongly we must support our organic farmers, food 
is the main component to our health. Too much money is spend on items 
which are labeled food but are really just fillers, they are 
contributing to the decline to this countries health.
                                 ______
                                 
                        Comment of Gary Reynolds
    Date Submitted: Sunday, April 29, 2012, 8:56 a.m.
    City, State: Edmond, WV
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Big Ag does not need taxpayer support. Small farms give 
people a way to purchase locally grown and healthier food. In food 
``deserts''--Detroit being the biggest example--for many consumers, 
local produce is the Only choice, as the big-box food retailers are 
pulling out. This means that it's either locally-grown, or what's 
available in liquor & convenience stores. When will you people decide 
that the people's welfare is paramount, that the small farm provides a 
vital service? And stop throwing money where it is not needed? By all 
appearances, Big Ag has Congress in its back pocket. Your institution 
is creating a nation of cynics. Please, do the right thing, stop acting 
like hostages to those that can afford to throw the most money at you, 
and support locally grown food and the family farms that provide it. 
Thank you.
                                 ______
                                 
                        Comment of Lisa Reynolds
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Pahoa, HI
    Occupation: EMT
    Comment: We're long overdue to returning to the kind of food my 
grandparents and their parents used to eat. Real food. The kind of food 
that actually nourishes the body and maintains health, and is the best 
preventative against sickness and disease. Lets go organic Now.
                                 ______
                                 
                       Comment of Peter Reynolds
    Date Submitted: Friday, May 18, 2012, 12:22 p.m.
    City, State: Durham, NC
    Occupation: Scientist
    Comment: Subsidies are no longer necessary, especially for crops 
like corn and soy. The original motivation is gone, and now all they do 
is support already thriving areas of agriculture, that are in fact 
over-represented in production over areas that are more important for 
the economy and consumer's health.
                                 ______
                                 
                        Comment of Abagail Rhea
    Date Submitted: Saturday, May 19, 2012, 5:12 p.m.
    City, State: Mt. Carmel, TN
    Occupation: Grocery Store Worker
    Comment: Please reform the farm bill to Include organic growing 
methods and protection for organic farmers. In the future I hope to 
have my own organic farm, but the big corporations that continually get 
their way don't want that happening--it's pretty obvious they only care 
about money and Not the health and safety of the plants and creatures 
under their ``care''.
                                 ______
                                 
                       Comment of Jennifer Rhoads
    Date Submitted: Thursday, May 10, 2012, 1:32 p.m.
    City, State: Chicago, IL
    Occupation: Office Administrator
    Comment: Older Americans' struggles with hunger are often 
invisible. It's too easy for most people to overlook how many seniors 
have serious trouble accessing the food and nutrition they need to 
survive and thrive. Often, they are forced to make difficult decisions 
between food, medicine, or paying their utilities or rent.
    We simply cannot allow one of our most vulnerable populations to 
suffer in silence any longer! Therefore, I urge you to pass a strong 
farm bill that protects programs like SNAP, TEFAP, and CSFP, which help 
provide food for millions of America's most vulnerable seniors.
                                 ______
                                 
                        Comment of Kevin Rhoads
    Date Submitted: Friday, May 18, 2012, 12:22 p.m.
    City, State: Lyme, NH
    Occupation: Engineer
    Comment: Factory farming is killing us. Poor nutritional value, 
antibiotic resistant germ breeding, toxic waste concentrations--Why Are 
We Subsidizing This Craziness. I grew up in a farming area. With a real 
County Fair, chickens, pigs, corn, & more--where is the encouragement 
of that? Nowhere in your last few bills--enough with the Tyson, Archer 
Daniels Midland, Monsanto farm bills--we don't want that cruft.
    Support real farming, especially organic farming, and leave the 
toxic crap in the laboratories where it belongs.
                                 ______
                                 
                        Comment of Harry Rhodes
    Date Submitted: Tuesday, March 20, 2012, 11:45 a.m.
    City, State: Chicago, IL
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Growing Home operates 3 USDA certified organic urban farms 
on the south side of Chicago (1.5 acres total), and 1 certified organic 
farm in Marseilles, IL (10 acres).
    We use these farms as a vehicle for job training, employment and 
community and economic development. Local and regional food systems 
help create jobs and spur economic growth in rural and urban 
communities. Please support investment in this growing sector by 
including the Local Farms, Food, and Jobs Act in the next farm bill.
    While we have found some USDA programs that support our work, most 
focus on rural development, and thus exclude urban farming. This is a 
growing field, one that creates job opportunities in an urban setting, 
and makes more good, fresh produce available in food deserts. I urge 
the USDA to create new programs that support urban agriculture.
    The future of family farming and ranching in America depends upon 
ensuring that would-be new farmers have access to land, capital, and 
markets. Please support beginning farmers and ranchers by including 
Beginning Farmer and Rancher Opportunity Act in the next farm bill.
                                 ______
                                 
                         Comment of Dalia Rhule
    Date Submitted: Friday, May 18, 2012, 11:20 a.m.
    City, State: Long Beach, CA
    Occupation: Program Manager
    Comment: Dear Government,

    Please take consideration of the people you don't give subsides. 
These organic and disadvantage farmers are not out on their own while 
government supports slaughter houses treat animals is horrible ways. 
Please support something that gives lives. Don't just give our tax 
dollars to companies like Tyson who are sooo soo cruel to so many 
animals. My prayer is that you have the power to encourage a more 
humane America and that you take action towards a more humane future to 
our children.
            Take Care,

Dalia.
                                 ______
                                 
                        Comment of Frank Riccio
    Date Submitted: Friday, May 18, 2012, 1:34 p.m.
    City, State: Charlottesville, VA
    Occupation: Commercial Artist
    Comment: Legislation should shift subsidies away from giant agra 
business, and toward the small family farm. Particular emphasis should 
be placed on supporting organic practices.
                                 ______
                                 
                         Comment of David Rice
    Date Submitted: Sunday, May 20, 2012, 5:38 p.m.
    City, State: Lynnwood, WA
    Occupation: Natural Foods Grocery Employee
    Comment: Please enact the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    As a citizen, a taxpayer and an an eater I implore the Congress to 
put the health of the American people in front of the health of 
corporate profits. If taxpayer dollars are going to be spent on food, 
then this money should go toward making our domestic food supply as 
safe, profitable and local as possible. Put taxpayer money back into 
the hands of family farmers, young farmers and sustainable food 
producers. Do your research like real adults and get of our bed with 
the corporate lobbyists. Please do what is best for America, not simply 
what gets you the most kick-backs.

David Rice,
Lynnwood, WA.
                                 ______
                                 
                         Comment of Ronda Rice
    Date Submitted: Friday, May 18, 2012, 2:49 p.m.
    City, State: Santa Cruz, CA
    Occupation: Caregiver, Natural Birth Consultant, Home Gardener, 
Environmentalist
    Comment: As long as we are dictated by ignorance and the 
destructive farming techniques perpetuated by corporate bottom lines, 
we will continue to destroy our home Earth and our own bodies. The 
wisdom is not be found in the realms of corporation but in the realms 
of those who are truly connected with Earth intelligence. You are 
invited to join us.
                                 ______
                                 
                       Comment of Andrus Richard
    Date Submitted: Friday, May 11, 2012, 3:28 p.m.
    City, State: Binghamton, NY
    Occupation: College Professor
    Comment: Recent farm bills have almost exclusively supported large 
scale agriculture and provided less than acceptable funds for 
conservation. American industrial ag is eroding soil at least 10 times 
the rate it is forming. We desperately need the government to help 
beginning, organic and small farmers while not subsidizing big 
agribusiness. Our future actually depends more on this than on energy 
and chemical intensive farms.
                                 ______
                                 
                       Comment of Lester Richard
    Date Submitted: Wednesday, May 09, 2012, 3:17 p.m.
    City, State: Springfield, MA
    Comment: Each day we see the lines getting long and the food get 
less. It hard to understand why you want to keep food out of anyone 
mouth and you never had a problem eating. So why is it so easy for you 
to cut fund?
                                 ______
                                 
                      Comment of Vanessa Richards
    Date Submitted: Friday, May 18, 2012, 1:51 p.m.
    City, State: Rockland, ME
    Occupation: Adult Education Instructor (Biology and Mathematics)
    Comment: Please do whatever you can to undo the damage the new laws 
have done to small farms and producers--particularly organic. Corporate 
farms are destroying our precious resources, our health, And taking 
away the traditional roles farmers have played since the invention of 
agriculture. Quality food that will improve the health of our nation's 
citizens should obviously be the primary mission of the agriculture 
industry: Profits Should Be The Least Important. Please, do whatever 
you can to change our broken system.
                                 ______
                                 
                      Comment of Debra Richardson
    Date Submitted: Saturday, May 19, 2012, 9:37 p.m.
    City, State: Utica, NY
    Occupation: Program Director
    Comment: I find it most interesting that this Comment Form offers 
``Producer'' and ``Non Producer''. There is No Such thing as a Non 
Producer. We are either Producers or Co-Producers. When I buy food, I 
am co-producing through my demand. I support with my dollar thus 
becoming co-producer . . . and I choose to co-produce good, clean, fair 
food.
    For the last 4 years I have taken time to learn quite a bit about 
the farm bill. And now I spend much of my time working with the 
healthcare community, local government and universities sharing the 
importance of the farm bill. And we share a common concern: The farm 
bill does not fairly support the sectors of Agriculture that produce 
what the USDA recommends and requires of their Federal Feeding 
programs: a diet of 50% 'Specialty Crop' Fruits and Vegetables.
    Our farm bill structure of subsidizing Commodity Crops is 
nutritionally irresponsible.
    As a nation facing pandemics of diet related disease and the 
resulting healthcare costs that will break our nation faster than Wall 
Street, I ask that you take this into consideration from the standpoint 
of common sense: something not so common today.
    It's time to climb out of the sandbox in Washington, vote the 
issue, not the party line.
            Warmest Regards,

Debra Richardson,
Mohawk Valley, New York.
                                 ______
                                 
                       Comment of John Richardson
    Date Submitted: Saturday, May 19, 2012, 11:30 p.m.
    City, State: West Bloomfield, MI
    Occupation: Engineer
    Comment: Organic farming must be protected. Factory farming must be 
better examined for violations. Monsanto must be investigated and 
prosecuted to the full extent of the law.
                                 ______
                                 
                      Comment of Kevin Richardson
    Date Submitted: Friday, May 18, 2012, 11:47 a.m.
    City, State: Marshfield, MA
    Occupation: Managing Member, Organic Plant Magic LLC
    Comment: This is critical to support the diversity of scale and 
types of farming. Diversification strengthens our country, food supply 
and health. I welcome an opportunity to discuss further.

Kevin,
[Redacted].
                                 ______
                                 
                        Comment of Tamara Richel
    Date Submitted: Friday, May 18, 2012, 5:21 p.m.
    City, State: Rangeley, ME
    Occupation: Self-Employed Artist
    Comment: Organic farms and farming need to be subsidized so they 
can grow enough organic produce and meats to feed the people who want 
it. Right now it is too expensive and that makes it hard for everyone 
who wants it to be able to afford it.
                                 ______
                                 
                       Comments of Susan Richison
    Date Submitted: Friday, May 11, 2012 4:04 p.m.
    City, State: Point, TX
    Occupation: Landscaper/Greenhouse Worker
    Comment: The new farm bill needs to have funding for:

    1. Beginning Farmer Programs (who is going to feed my 
        grandchildren?)

    2. Conservation Programs

    3. Keep the SNAP program and don't cut the budget for Defense 
        Spending.

    4. Cut monies to Big Agriculture Businesses.

    5. No GMO's. Good Healthy Food.

    6. Support and give funding to Organic Farmers.

    7. Support and give funding to Sustainable Agriculture Practices.

    8. Put agriculture back in the hands of non-gmo farmers.

    9. End Monsanto and others reign in American Agriculture.

    10. Label GMO's that are already being used in our food supply at 
        this time.

    Date Submitted: Friday, May 18, 2012, 12:18 p.m.
    Comment: We need all provisions set forth in H.R. 3286 and H.R. 
3236.
    We need all funding for EQIP.
    Why would you even think about cutting in \1/2\ monies for the 
beginning farmer programs? I do not want to have all my food in the 
future coming from foreign lands. And the $33 billion you are cutting 
from the (SNAP) food stamp program is unbelievable even for you people. 
The number one thing all of us here on Earth has to have daily is food 
and water. And to cut low income, disabled, out-of-work Americans out 
of food is very cruel. Do something smart like cutting farm subsidies.
    Date Submitted: Friday, May 18, 2012 12:34 p.m.
    Comment: As is stated above, I live in Point (Rains County) Texas. 
For all of those that do not know--this is the birthplace of the 
National Farmers Union. All states are represented here at the 
monument. By taking away our Beginning Farmers funding and others 
topics on the chopping block, how many of those states will be 
represented in the future? Farmers have to have a safety net that works 
for them. They need insurance and price regulations that help them. We 
need local foods, Farms and the Job Act (H.R. 3286). We need monies 
going towards healthy foods--no GMO's. No large corporations--like 
Monsanto and others. We (the people you represent) need fresh, healthy 
foods--meaning Organic.
                                 ______
                                 
                        Comment of Shea Richland
    Date Submitted: Friday, May 18, 2012, 5:57 p.m.
    City, State: Prescott, AZ
    Occupation: Retired
    Comment: I am concerned that the health of American citizens, 
American soil, American farms and all life that supports American's 
healthy nutrition is in grave jeopardy and that current practices are 
not only not sustainable, but ineffective and dangerous. We need to 
move to non-monoculture, organic, non-GMO farm practices immediately if 
we are going to see an improvement in our citizen's health and if we 
are going to protect our future food supply.
                                 ______
                                 
                       Comment of Eileen Richmond
    Date Submitted: Friday, May 18, 2012, 9:19 p.m.
    City, State: Medford, MA
    Occupation: Retail Sales Clerk
    Comment: The health of the citizens of the USA is highly dependent 
on quality food production. You're probably already aware that certain 
farming practices have undermined the safety of our food as well as 
water supply. Please express concern during the Committee's farm bill 
field hearing. Please work to insure that this generation and future 
generations have access to healthy foods. Thank You!
                                 ______
                                 
                        Comment of Sally Riddell
    Date Submitted: Thursday, May 17, 2012, 9:09 p.m.
    City, State: Glastonbury, CT
    Occupation: Nurse
    Comment: I have served as a volunteer for the Foodshare mobile food 
distribution truck over the past 3 years. The truck brings fresh 
produce to families, adults, seniors in need in the surrounding 
Glastonbury community. We started with 36 clients and are now seeing 
over 100 every 2 weeks. There are new faces each time, all in need of 
food. Most of these folks receive SNAP support as well. Those I have 
talked to are newly unemployed, single mothers or seniors trying to 
feed themselves and their families. They depend on these programs to 
supplement whatever salary they have. I urge you NOT to cut funding for 
these programs.

Sally Riddell.
                                 ______
                                 
                       Comment of Andrea Ridgard
    Date Submitted: Wednesday, May 16, 2012, 1:32 p.m.
    City, State: Ann Arbor, MI
    Occupation: Nonprofit Farm Business Incubator Manager
    Comment: Dear Members of Congress,

    I agree that America needs a farm bill that makes healthy food 
widely available to all Americans--including, and perhaps especially, 
schoolchildren! We must provide flexibility for states to use existing 
food procurement programs to purchase fresh, healthy food from local 
farmers and ranchers. These children are our future. Instilling in them 
ideas and beliefs about healthy food is not enough, they must 
experience its goodness and find it personally enjoyable in order to 
form long lasting healthy decisions about what they put into their 
bodies to remain healthy and become strong and effective leaders for 
our country's future and for their personal future as leaders of their 
own families and communities.
    Likewise, America needs a farm bill that invests in the next 
generation of farmers and ranchers--guarantee $25 million per year in 
mandatory funding for the Beginning Farmer and Rancher Development 
Program. We need a national strategy and commitment to support 
beginning farmer and ranchers entering agriculture. With an aging farm 
population, now is the time to invest in the future of American 
agriculture by nurturing new agriculture start-ups. The biggest hurdle 
or barrier to entry for new farm business owners is land and 
infrastructure. A bill that supports emerging localized farm businesses 
will provide more ways for new farmers to become successful and feed 
their communities. It will promote farm business development, 
education, and provide access to need resources such as land, hoop 
houses, electricity, storage, and large tools and equipment as well.
    These new farmers are creative entrepreneurs! America needs a farm 
bill that drives innovation for tomorrow's farmers and food 
entrepreneurs--fund the Organic Agriculture Research and Extension 
Initiative at $30 million per year in mandatory funding. Investment in 
agricultural research is vital to continued productivity and innovation 
in growing and diverse sectors of American agriculture, such as organic 
agriculture. A farm bill like this will show farmers that we value 
their work, and value our own lives by investing in the food we grow, 
consume and feed to our loved one.
    In great appreciation of your work and commitment to growing a 
healthy nation,

Andrea Ridgard.
                                 ______
                                 
                       Comment of Louise Riersen
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: Anacortes, WA
    Occupation: Cashier for Food Co-Op
    Comment: We need a fair and healthy organic farm bill that focuses 
on the best agricultural practices for the health of its citizens, as 
well as, protecting the land and the livelihood of farms and farm 
workers. We need reform. Please pass an Organic Farm Bill.
                                 ______
                                 
                         Comment of Daniel Ries
    Date Submitted: Friday, May 18, 2012, 12:56 p.m.
    City, State: Mason City, IA
    Occupation: Public Health
    Comment: Strict conservation practices must be at the heart of any 
farm bill. Not only is it important from an environmental and public 
health standpoint, it makes since financially considering the cost of 
cleaning up as a result of bad conservation practices. What has it cost 
the Mississippi Delta area? What does it cost water supplies to clean-
up contaminated waters? How does it affect the recreation and tourism 
industry? Please vote for strong conservation protections in the 
upcoming farm bill. Thank you!
                                 ______
                                 
                        Comment of Shelley Ries
    Date Submitted: Friday, May 18, 2012, 6:13 p.m.
    City, State: Corvallis, OR
    Occupation: Registered Nurse
    Comment: We need to support independent farmers and producers. Our 
soil is depleted, our oceans are toxic waste zones from ag run-off. We 
need to get Americans eating healthy food, not cram produced meats and 
corn-fed corn. Stop polluting our waters and air, and wasting 
resources. We can do far more to improve life on this planet with an 
organic based farm culture, so please stop the waste and ruin today.
                                 ______
                                 
                       Comment of Marie Rietmann
    Date Submitted: Wednesday, May 02, 2012, 6:13 p.m.
    City, State: Condon, OR
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: I believe the conservation compact between farmers and 
taxpayers should be maintained. All income support programs should be 
brought under its umbrella, including eligibility for crop and revenue 
insurance premium subsidies. Richard Riger Wednesday, May 09, 2012 2:50 
p.m. Albuquerque NM Retired We need to end 2All farm subsidies to 
Agribusinesses. All ethanol subsidies need to end also. We are 
unbalancing supply and demand markets with these and the result is 
killing small farms that Care for the Land, not 2Rape it.
                                 ______
                                 
                      Comment of Patricia Riggins
    Date Submitted: Friday, May 18, 2012, 2:36 p.m.
    City, State: Cleburne, TX
    Occupation: Accountant
    Comment: Please make it your priority to maintain critical 
nutrition programs. We need more farmers and ranchers, more sustainable 
food production, and more economic opportunity in our food system. Help 
provide for our future!
                                 ______
                                 
                         Comment of David Riley
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Bronson, FL
    Occupation: Registered Nurse
    Comment: Please do not allow corporations such as Monsanto to 
monopolize and corrupt our food supplies, and at the very least if they 
win their battle to do so, make them label these products so those of 
us who find their foods a threat to the health of our children can 
avoid eating them.
    The most logical decision our government can make should protect 
our citizens and local farmers above corporate greed and profit.
                                 ______
                                 
                         Comment of Diane Riley
    Date Submitted: Friday, May 11, 2012, 3:33 p.m.
    City, State: Hillside, NJ
    Occupation: Director of Advocacy, Community FoodBank of New Jersey
    Comment:

House Committee on Agriculture,
Washington, D.C.

    Dear Chairman Lucas, Ranking Member Peterson, and members of the 
Committee:

    Thank you for the opportunity to provide input on the upcoming farm 
bill reauthorization. Given the increasing need for food assistance in 
our state and the declining supply of Federal commodity support, I 
strongly urge you protect and strengthen nutrition programs in the 2012 
Farm Bill.
    At the Community FoodBank of New Jersey, we see every day how 
important Federal nutrition programs are in our community and how 
effectively they are working to ensure that struggling New Jerseyans 
can provide enough food for their families. Currently, the Community 
FoodBank of New Jersey serves 830,000 people annually.
    Nationally, the Feeding America network of more than 200 food banks 
has seen a 46 percent increase in food bank clients from 2006 to 2010, 
and we are struggling to keep up with increased demand. Without strong 
farm bill nutrition programs like The Emergency Food Assistance Program 
(TEFAP), the Supplemental Nutrition Assistance Program (SNAP), and the 
Commodity Supplemental Food Program (CFSP), food banks across the 
country would be struggling even more to meet the increased need.
    We recognize the challenge you face drafting a farm bill in a time 
of deficit reduction, but we are also sensitive to the tremendous, 
ongoing need in our state. As such, we have two key priorities for the 
farm bill.
    First, we urge you to strengthen TEFAP to help us keep up with 
increased demand. TEFAP supplies about 25 percent of the food moving 
through Feeding America's national network of food banks and at times 
during the last few years TEFAP has provided the food banks throughout 
the State of New Jersey between 35%--55% of the food we are able to 
distribute. But because of strong commodity prices, TEFAP food declined 
30 percent last year, and our food bank is struggling to make up the 
difference. We urge you to make TEFAP more responsive during times of 
high need by tying increases in mandatory funding to a trigger based on 
unemployment levels. We also propose to enhance the Secretary of 
Agriculture's authority to make TEFAP bonus purchases at times when the 
need for emergency food assistance is high--for example high 
unemployment--in addition to times of weak agriculture markets so that 
the program can respond to both excess supply and excess demand.
    Second, we also strongly urge you to protect SNAP from harmful 
funding cuts or policy proposals that would restrict eligibility or 
reduce benefits. SNAP has responded effectively to growing need in the 
recession with benefits that are timely, targeted, and temporary. The 
average SNAP household has an income of only 57 percent of the Federal 
poverty guideline, and 84 percent of benefits go to households with a 
child, senior, or disabled person. The program is working to support 
vulnerable New Jersey families, and our food bank or local agency 
partners would not be able to meet the increased need for food 
assistance if SNAP were cut.
    These programs have a real impact on your constituents, many of 
whom must rely on the food bank and Federal nutrition programs to meet 
their basic food needs. I would encourage you to visit the food banks 
serving your district before the Committee marks up a farm bill so you 
can meet our clients and see firsthand how Federal nutrition programs 
are working to protect vulnerable Americans from hunger.
    The Community FoodBank of New Jersey believes that feeding our 
neighbors is a shared responsibility, and food banks like ours rely on 
a variety of food streams to support our communities, including 
generous support from partners in retail, manufacturing, and 
agriculture. However, the Federal government is an equally critical 
partner through programs like TEFAP, SNAP, and CSFP, and with 
tremendous, ongoing need in our state, ongoing Federal support is more 
important than ever.
    As the House Agriculture Committee moves forward with farm bill 
reauthorization, our food bank urges you to protect the nutrition 
safety net and offers the specific recommendations below.
            Sincerely,

Diane Riley,
Director of Advocacy.
Feeding America Farm Bill Priorities
    The Emergency Food Assistance Program (TEFAP): TEFAP is a means-
tested Federal program that provides food commodities at no cost to 
Americans in need of short-term hunger relief through organizations 
like food banks, pantries, soup kitchens, and emergency shelters. 
Nutritious food commodities provided through TEFAP are an essential 
resource for Feeding America food banks. As the demand for food remains 
high at food banks across the country, a continuous stream of TEFAP is 
necessary for the provision of a steady emergency food supply.

  <bullet> TEFAP commodities account for approximately 25% of the food 
        moving through Feeding America food banks. Food banks combine 
        TEFAP with private donations to maximize TEFAP benefits far 
        beyond the budgeted amount for the program. In this way, food 
        banks exemplify an optimum model of public-private partnership.

  <bullet> TEFAP has a strong impact on the farm economy. According to 
        USDA's Economic Research Service, producers of commodities 
        provided as bonus TEFAP (those purchased by USDA to intervene 
        in weak agricultural markets) receive an estimated 85 cents per 
        dollar of Federal expenditure. Producers of other commodities 
        provided through TEFAP receive about 27 cents per dollar. By 
        contrast, only about 16 cents of every retail food dollar goes 
        back to the farmer.

  <bullet> Declines in Section 32 funding and strong agriculture 
        markets resulted in a 30% decline in TEFAP purchases during 
        FY2011. This decline is expected to continue in FY2012 as food 
        banks continue struggling to meet increased need. The shortfall 
        between supply and demand will only worsen when the SNAP ARRA 
        benefit boost expires, as many participants turn to food banks 
        to make up for the reduction in benefit levels.

    Farm Bill Priorities for TEFAP:

  <bullet> Make mandatory funding for TEFAP food more responsive to 
        changes in need by providing a trigger that ties funding to 
        unemployment levels

  <bullet> Enhance Secretary of Agriculture's authority to purchase 
        bonus commodities in times of high need for emergency food 
        relief in addition to times of low commodity prices so the 
        program is responsive both to excess supply and excess demand

  <bullet> Reauthorize funding for TEFAP Storage and Distribution Funds 
        at $100 million per year

  <bullet> Reauthorize funding for TEFAP Infrastructure Grants at $15 
        million per year

    Supplemental Nutrition Assistance Program (SNAP): SNAP is the 
cornerstone of the nutrition safety net, providing over 46 million low-
income participants with monthly benefits via a grocery debit card. 
Eligibility is based on household income and assets and is subject to 
work and citizenship requirements. SNAP is one of the most responsive 
safety net programs, expanding quickly to meet rising need during the 
recession. The program is targeted at our most vulnerable; 76% of SNAP 
households contain a child, senior, or disabled member, and 84% of all 
benefits go to these households.

  <bullet> As the number of people unemployed grew 110% from 2007 to 
        2010, SNAP responded with a 53% increase in participation over 
        the same period. As the economy slowly recovers and 
        unemployment begins to fall, SNAP participation and costs too 
        can be expected to decline.

  <bullet> The SNAP accuracy rate of 96.19% (FY10) is an all-time 
        program high. SNAP error rates declined by 61% from FY 1999 to 
        FY 2010, from 9.86% to a record low of 3.81%.

  <bullet> SNAP benefits supplement a household's food budget but are 
        insufficient to last most participants through the month, 
        causing many participants to rely regularly on food banks. 
        Among Feeding America food pantry clients receiving SNAP 
        benefits, over \1/2\ (58%) reported having visited a food 
        pantry at least 6 months or more during the prior year.

  <bullet> The average SNAP household has a gross monthly income of 
        $731 and countable resources of $333, consists of 2.2 persons, 
        and participates in the program for 9 months. The average 
        household receives a monthly benefit of $287, or about $1.49 
        per person per meal.

    Farm Bill Priorities for SNAP:

  <bullet> Protect SNAP by opposing proposals to cap or reduce funding, 
        restrict eligibility, reduce benefits, or otherwise impede 
        access or benefit adequacy. Recent proposals to block grant the 
        program would prevent it from responding effectively to 
        fluctuations in need, and efforts to limit broad based 
        categorical eligibility would increase administrative costs and 
        access barriers.

  <bullet> Restore the cut to the SNAP ARRA benefit boost used to pay 
        for the 2010 child nutrition bill and phase out the boost in a 
        way that protects families from a cliff in benefit levels.

  <bullet> Encourage better nutrition by maintaining nutrition 
        education, incentivizing the purchase of healthy foods, and 
        ensuring that retailer standards balance adequate access to 
        stores with access to a range of healthy foods and moderate 
        prices.

  <bullet> Build on SNAP's strong record of integrity and payment 
        accuracy by issuing guidance to states on the eligibility of 
        lottery winners and college students and upgrading resources 
        and technology for trafficking prevention.

    Commodity Supplemental Food Program (CSFP): CSFP leverages 
government buying power to provide nutritious food packages to 
approximately 599,000 low income people each month. Nearly 97 percent 
of program participants are seniors with incomes of less than 130% of 
the poverty line (approximately $14,000 for a senior living alone). 
Currently, 39 states and the District of Columbia participate in CSFP. 
Another 6 states (CT, HI, ID, MD, MA, & RI) have USDA-approved plans, 
but have not yet received appropriations to begin service.

  <bullet> CSFP is an efficient and effective program. While the cost 
        to USDA to purchase commodities for this package of food is 
        about $20 per month, the average retail value of the foods in 
        the package is $50.

  <bullet> CSFP helps to combat the poor health conditions often found 
        in seniors who are experiencing food insecurity and at risk of 
        hunger. CSFP food packages, specifically designed to supplement 
        nutrients typically lacking in participants' diets like 
        protein, iron, and zinc, can play an important role in 
        addressing the nutrition needs of low-income seniors.

  <bullet> Many seniors participating in CSFP are able to have their 
        food boxes delivered directly to their homes or to seniors' 
        centers nearby, an important benefit for those who are 
        homebound, have limited mobility or do not have convenient 
        access to a grocery store.

    Farm Bill Priorities for CSFP:

  <bullet> Transition CSFP to a seniors-only program by phasing out 
        eligibility of women, infants, and children while 
        grandfathering in current participants.
                                 ______
                                 
                       Comment of Michelle Riley
    Date Submitted: Monday, May 07, 2012, 3:15 p.m.
    City, State: Dayton, OH
    Occupation: Chief Executive Officer, The Foodbank, Dayton
    Comment: On behalf of The Foodbank Dayton, Inc., the 87 nonprofits 
we serve and hungry citizens, we ask the House Agriculture Committee to 
protect hunger relief programs. The Foodbank does not consider 
politics, conservative or liberal, when addressing the very real issue 
of hunger. According to the Census Bureau, 17.8% of Montgomery Co. and 
14.4% of Greene Co. residents have incomes below the poverty line. For 
a family of four, with two children under the age of 18, the annual 
household income is less than $21,970 at the poverty line. These 
individuals qualify for food assistance. For those served by our member 
agencies--pantries, prepared meal sites and shelters--hunger is a stark 
and painful reality. We ask that you preserve the current funding 
levels so we can continue to do this vital work.

Michelle Riley,
CEO,
The Foodbank Dayton, Inc.
                                 ______
                                 
                        Comment of Russell Riley
    Date Submitted: Friday, May 18, 2012, 10:46 p.m.
    City, State: Pensacola, FL
    Occupation: Retired Military--U.S. Army
    Comment: Lets go back to the time when American farms were great; 
they used natural fertilizers not this junk/poison from Monsanto or Dow 
Chemicals. The fed Americans and Americans should be fed first, forget 
all ``good aid'' to developing countries. Stop buying from NAFTA, used 
American food products first, then IF there is an shortage used NAFTA. 
American farmers are hurting and POTUS and Congress is behind this, 
why? Aren't American food products good enough for you so-called 
``elite''. Americans are wondering why Congress and the President has 
turned their back on us. Please House Ag Committee, Support American 
farmers, do not cut their money or turn your backs on them!
                                 ______
                                 
                   Comment of Inger K. Riley, Pys. D.
    Date Submitted: Friday, May 18, 2012, 2:30 p.m.
    City, State: Acton, MA
    Occupation: Clinician
    Comment: Dear House Committee Members,

    I am writing to urgently request you to consider full funding for 
the programs you have already decided are for the betterment of our 
nation! This means the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286). Also to fully fund conservation 
programs, such as the Conservation Stewardship Program, and making sure 
that enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs. The implementation of all 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236) you already adopted is needed to help the survival of our local 
farms. Also I hope that you will maintain the EQIP Organic Initiative, 
as the more we as communities eat healthy, locally grown foods, the 
better your electorate will be and the cheaper it will be in the long 
run for the nation.
    I also implore you not to cut the food stamp program, as those with 
the least in this country should be the first that are helped by our 
government. You will make already hungry children in our country 
starve. This can't be what the United States of America is doing to our 
people. Let other committees figure out budgetary cuts, this is one of 
the most important places where funding needs to be maintained and 
supported for all that you've already tried to do.
    Thank you for your time in considering these enormously important 
issue.
            Sincerely,

Inger K. Riley, Pys. D.
                                 ______
                                 
                        Comment of Michael Rion
    Date Submitted: Thursday, May 17, 2012, 7:03 p.m.
    City, State: West Hartford, CT
    Occupation: Retired Business Ethics Consultant
    Comment: I volunteer in Hartford helping people apply for SNAP. 
These are good people of all ages who face hard times and SNAP is 
frankly the least we can do to support a basic need in the midst of our 
still sluggish economy. It also, by the way, helps the economy as folks 
spend the money locally for food. Please do Not cut this vital program, 
thank you.
                                 ______
                                 
                         Comment of Julie Rist
    Date Submitted: Saturday, May 19, 2012, 7:08 p.m.
    City, State: Phoenix, AZ
    Occupation: Full-Time Working Artist
    Comment: While it may be SOP these days to ignore the deafening 
preferences of the people, surely congress would be expected to heed 
commerce. And, clearly, there is a robust--and ever growing--market for 
locally grown, unadulterated, nutritious, organic foods throughout the 
country.
    Hasn't Big Ag taken enough? Polluted enough? Eroded enough? 
Poisoned us enough? Crushed enough independent farmers? Taken enough of 
our jobs? Skewed food prices enough? Caused enough obesity and 
diabetes?
    It is time for real reform--not more lip service, winks and nods.
                                 ______
                                 
                       Comment of Steven Ritchie
    Date Submitted: Friday, May 18, 2012, 2:35 p.m.
    City, State: Tampa, FL
    Occupation: Retired
    Comment: We need an organic farm bill and need to encourage 
sustainable agriculture. We do not need to promote giant agribusiness. 
GMOs need to be labeled! Give consumers a choice! Research is showing 
some disturbing facts about GMOs.
    Beginning farmer program should be fully funded.
                                 ______
                                 
                       Comment of Jessica Ritland
    Date Submitted: Saturday, May 19, 2012, 3:24 a.m.
    City, State: Albany, CA
    Occupation: Research Technician
    Comment: I would like to see less aide to mega-farms, and for fair 
livestock marketing rules to be implemented. Food should not be a 
business that puts profit over quality. We need healthy, whole foods to 
survive, not corn and high-fructose corn syrup. More healthy food in 
our country would help children grow and learn better. We need healthy 
people if this country is going to survive.
                                 ______
                                 
                        Comment of Cathy Ritter
    Date Submitted: Friday, May 18, 2012, 3:42 p.m.
    City, State: Denver, CO
    Occupation: Customer Service, Denver Botanic Gardens
    Comment: I grow my own food, buy at farmer's markets, a member of a 
CSA and have a son who is self-sufficient by growing his own food and 
raising farm animals. I could not imagine not being able to feel safe 
with the food/produce I choose to buy/raise without the farm bill being 
passed. Please do what is right by your constituents and their 
grandchildren and great-grandchildren of tomorrow.
                                 ______
                                 
                       Comment of Wendy Rittmeyer
    Date Submitted: Friday, May 18, 2012, 11:34 a.m.
    City, State: Pittsburgh, PA
    Occupation: Massage Therapist
    Comment: I want to be able to buy reasonably priced, in season, 
local produce including raw milk, fresh, cage free and organic eggs, 
raw milk and other small farm made/produced dairy products, and local, 
hormone and antibiotic free, grass fed beef and other meats including 
pork and chicken at either the farms themselves or at local farmers 
markets.
                                 ______
                                 
                       Comment of Kristin Ritzau
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Monrovia, CA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: My husband and I have committed to living off of our small 
homestead in order to protect our health and future. We are doing this 
because we have given up hope in a government that believes it is for 
the people and by the people. Instead it would appear, at least where 
food and farming is concerned, that sustainability in ways that are 
healthy is of the least concern.
    We understand there are many ``issues'' on the table you must 
contend with every day. But we are not necessarily concerned with 
today. We want to provide a healthy world for our great great 
grandkids. Progress without responsibility, accountability and research 
of other possible organic ways is scary.
    My husband and I grow 500 lbs of produce a year on \1/5\ of an 
acre. This country survived wars by doing the same. We need to remember 
what home is and bring back the soil of this rich land by using its 
natural resources instead of toxic chemicals.
    Please congressperson, be a representative of a valley that used to 
be one of the richest citrus valleys in the world. Look to the heritage 
of this land and the legacy you want to leave. Check out what your 
neighbors are doing in Altadena and in the growing farmer's markets in 
South Pasadena and Monrovia.
    Supporting small farmers put people back to work. Additionally, 
incentivizing suburban neighborhoods to plant local plants, vegetables, 
and to shop at farmer's markets greatly helps improve communities as 
well.
    The subsidies of corn and soybean and other one crop farms are not 
sustainable--please turn to farmers and educators instead of money and 
Monsanto.
                                 ______
                                 
                      Comment of Constance Rizoli
    Date Submitted: Tuesday, May 15, 2012, 9:47 a.m.
    City, State: Westwood, MA
    Occupation: Public Policy
    Comment: Working for the state's largest anti-hunger organization, 
I see firsthand the daily benefits of SNAP for children, families, the 
elderly and so many others. Please do not cut this program. It helps 
people in times of their greatest need. It is flexible, helping people 
when they need it. It is an economic stimulus. SNAP funds are quickly 
put to use in the economy. Its incidence of fraud is noticeably small. 
SNAP keeps families out of poverty and directly impacts their health in 
positive ways.
                                 ______
                                 
                        Comment of Carol Robben
    Date Submitted: Saturday, May 19, 2012, 1:56 p.m.
    City, State: Belleville, IL
    Occupation: Retired
    Comment: I am asking that you not cut funding to vital programs 
such as nutrition, conservation and support for organic and sustainable 
agriculture. We can't keep putting the land, soil, environment, and our 
health at risk. U.S. Food and agricultural policy must focus on 
adopting the best agricultural practices that put the health of its 
citizens, the land and the livelihood of farmers and farm workers over 
the interests of industrial agriculture. Farmers and eaters across the 
U.S. benefit from a fair and healthy farm bill. I have found that it's 
getting harder and harder to find healthy food in the U.S. and that 
just doesn't make sense. We need foods that nourish our bodies, not 
foods that cause disease.
    Thank you.
                                 ______
                                 
                         Comment of Boz Robbins
    Date Submitted: Wednesday, May 16, 2012, 8:10 a.m.
    City, State: Bloomsburg, PA
    Producer/Non-producer: Producer
    Type: Dairy
    Size: 1,000+ acres
    Comment: Please support the Bennett amendment to the dairy bill, we 
also need a tool to control how MPC's come into this country, we are 
the balancer for the world.
                                 ______
                                 
                        Comment of Ruth Roberson
    Date Submitted: Sunday, May 20, 2012, 8:06 p.m.
    City, State: Sonoma, CA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: We need food that is safe. We need to know if it is 
genetically modified or not. Local organic farms are the answer to this 
problem. Subsidized agriculture to Monsanto, Cargill, etc. must stop. 
Local farms should be supported because they provide fresh food with 
less travel time and use less fossil fuels. We also need to improve 
school food. We need more fresh fruits and vegetables in school 
lunches. This can be provided locally in many communities. Instead of 
subsidizing corn, soy beans, etc. we can help local farmers with grants 
to States to support local agriculture supplying food to school 
districts.

Ruth Roberson.
                                 ______
                                 
                      Comment of William Roberson
    Date Submitted: Friday, May 11, 2012, 4:21 p.m.
    City, State: Brooklyn, NY
    Occupation: Retired
    Comment: My family, friends and I would like to see a farm bill 
that supports present and future farmers, particularly those smaller-
scale farmers who grow organic, sustainably and responsibly. We are 
concerned about the health risks, lower nutritional content, 
environmental damage and susceptibility to failure from super-pests of 
large-scale, mono-agriculture that increasingly depends on stronger 
pesticides and genetically modified crops. We would support tax breaks, 
incentives and development restrictions to encourage keeping and 
expanding local farmers. We urge you to end subsidies for ethanol and 
high-fructose corn syrup as it uses much valuable farmland to grow 
crops harmful to the environment and human health.
                                 ______
                                 
                         Comment of Lisa Robert
    Date Submitted: Friday, May 18, 2012, 12:10 p.m.
    City, State: Coral Springs, FL
    Occupation: Teacher
    Comment: We need to give all families a True choice between healthy 
food and junk. The current subsidies make junk food less expensive to 
families. I am in favor of No subsidies for farmers OR subsidies for 
small, organic farms, only.
                                 ______
                                 
                        Comment of Dawn Roberts
    Date Submitted: Friday, May 18, 2012, 8:00 p.m.
    City, State: York, SC
    Occupation: Personal Trainer
    Comment: As the government it is your job to watch out for the 
safety & health of the people. You are all failing! You are the reasons 
that America is unhealthy and has developed the diseases Americans are 
developing. Now it is time to stop what you are doing, redirect your 
focus, and start making decisions to help Americans to be healthy. 
Nutrition is 90%!
                                 ______
                                 
                       Comment of Dianne Roberts
    Date Submitted: Friday, May 18, 2012, 8:08 p.m.
    City, State: Seattle, WA
    Occupation: Unemployed
    Comment: I support the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286).
    I support fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236,)as well as maintaining 
the EQIP Organic Initiative.
    Getting rid of the direct payments to commodity farmers, while 
replacing it with the subsidized insurance program will allow giant 
commodity farmers and insurance companies to walk away with billions in 
taxpayer dollars while putting the land, soil and environment at 
greater risk.
    I agree with leading sustainable agriculture advocates which are 
this calling rife with opportunities for fraud and abuse.
    It's bad enough that Republicans in the House Agriculture Committee 
have already ``voted to slash $33 billion from the food stamp program 
while leaving farm subsidies unscathed.''
                                 ______
                                 
                      Comment of Katherine Roberts
    Date Submitted: Thursday, May 17, 2012, 5:36 p.m.
    City, State: San Francisco, CA
    Occupation: Educator
    Comment: Please stop subsidies to big ag that are wrecking the 
planet and support small local sustainable farming practices so 
everyone has access to a decent healthy food supply, and small farmers 
who are doing the right thing are able to survive. The current system 
is sheer madness! It's high time for a change--not just meaningless 
incremental changes but a real radical overhaul of the whole bloated 
system.
                                 ______
                                 
                        Comment of Mason Roberts
    Date Submitted: Friday, May 18, 2012, 3:35 p.m.
    City, State: Walnut Creek, CA
    Occupation: Workplace Occupancy Planner
    Comment: Hello--please keep in mind that there are many Americans 
(myself included) that want the American government to support 
incorporating safe, organic and non GMO foods and do not support the 
current farm policy. We want food grown without pesticides that is safe 
for the dirt it is grown in as well as the wildlife and humans that eat 
it. Your current farm policy is not what mainstream Americans want. 
Please take a good hard look at which policy's you are supporting and 
who is benefiting.
            Thank you,

Mason Roberts.
                                 ______
                                 
                       Comment of Rachel Roberts
    Date Submitted: Sunday, May 20, 2012, 1:37 p.m.
    City, State: Fort Worth, TX
    Occupation: City Planner
    Comment: As a Conservative, I am opposed to farm subsidies, 
specifically subsidies to large-scale agricultural operations. I 
support assistance to small, local producers. As a Conservative, I 
prefer support for local farmers and am opposed to big government 
spending on Big Ag. My representative, Mr. Burgess, is supposedly a 
Conservative, and I would like to see him practice what he says he 
believes.
    Further, I support the following:

  <bullet> the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286);

  <bullet> fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs;

  <bullet> the implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236); and

  <bullet> maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Teresa Roberts
    Date Submitted: Saturday, March 17, 2012, 9:46 a.m.
    City, State: Mansfield, MA
    Occupation: Author
    Comment:

    (1) I support my local food bank, and I know they are struggling 
        right now to meet the needs of my community. I ask that you 
        pass a strong farm bill that protects and strengthens programs 
        like TEFAP, SNAP, and CSFP. These programs are a lifeline to 
        the millions of Americans struggling with hunger, and I urge 
        you make them a priority in the next farm bill.

    (2) I also support small-scale, localized agriculture and urge a 
        farm bill that supports small family farms that market their 
        products through farmers' markets, CSAs and/or direct sales. 
        The farmers of America are aging. We need new farmers--and need 
        to encourage young people to venture into small-scale farming!
                                 ______
                                 
                     Comment of Patricia Robertson
    Date Submitted: Sunday, May 20, 2012, 1:45 p.m.
    City, State: Plymouth, MI
    Occupation: Retired
    Comment: Congress needs to start considering the health of our 
nation above the special interests of those who can donate big money. 
The people want healthy, local food available for their families. I am 
appalled at some of the decisions made by our Representatives who are 
supposed to protect the people. It is time for a change.
                                 ______
                                 
                        Comments of Vicki Robin
    Date Submitted: Friday, May 18, 2012, 11:05 a.m.
    City, State: Langley, WA
    Occupation: Writer, Speaker, Author
    Comment: Strong regional food systems insure national security, 
local prosperity, decreased obesity and other diet related illnesses 
and increased community self reliance. As a member of a semi rural 
island with small farmers and many professionals and retirees--and as 
the author of an upcoming book on local food--I understand that we 
urgently need to make the farm bill regional food system friendly. We 
need to support young people and disadvantaged people in choosing to 
farm, and succeeding. They need the barriers removed and supports put 
in place: support for education, land acquisition, first 5 year support 
to offset differential between the highly subsidized cost of industrial 
food and the honest price of local food. They need to be excluded from 
some of the regulations that protect the public from the toxicity of 
industrial farming and be unleashed from the licensing and inspection 
fees that make local meats, milks and cheeses expensive. They need to 
be free to sell milk and meat in small quantities to neighbors without 
risk of fines or jail. I am not asking for huge subsidies--simply small 
supports and freedoms that will allow local and regional producers to 
feed their neighbors. I am not asking for any policies that endanger 
the fertility of the soil, the purity of water or the integrity of 
forests. Indeed, small local producers embedded in strong communities 
are natural stewards of our shared resources. Also, while you are 
eloquent, I am a writer and am willing to help frame these issues with 
language that touches the heart and satisfies the mind.
    I concur with these words from Slow Food, of which I am a member:
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.

    Date Submitted: Sunday, May 20, 2012, 7:22 p.m.
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I have lived on 
Whidbey Island in Washington for 7 years and have eaten the fresh 
healthy food our farmers produce--even though the price is higher than 
the industrial farming outlets called grocery stores. Now I am writing 
a book about it called, Blessing The Hands That Feed Us and, as a NY 
Times and Business Week best selling author of, Your Money Or Your 
Life, I have high hopes of my message going far and wide. One part of 
my message is that we need a ``Marshall Plan for Young Farmers''--
meaning less than 2% of our population farms, the average age of 
farmers is nearly 60 and our national security and food safety depends 
on domestic food production. Young farmers face huge obstacles--I know 
because I feature some in my book. They need training, land and 
financial support:

  <bullet> training in growing regionally appropriate crops and 
        marketing them successfully . . . and this needs to be free or 
        low cost.

  <bullet> land, either that they own or have secure tenure on for 
        enough years to merit their dedication.

  <bullet> Mechanisms to level the $$ playing field between industrial 
        and local/organic food; price supports, rebates, tax credits . 
        . . And those who choose to start small farms, sell at local 
        markets, feed their regions fresh, affordable, accessible, 
        organic and yummy food need to be our heroes and heroines.

    So . . . As it's estimated that 125,000 farmers will retire in the 
next 5 years, it's absolutely critical that farm bill programs help 
citizens get started in this challenging field. I ask that the 
Committee endorse all of the provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Vicki Robin.
                                 ______
                                 
                         Comment of Rick Robins
    Date Submitted: Friday, May 18, 2012, 4:36 p.m.
    City, State: Grass Valley, CA
    Occupation: Manager
    Comment: The farm bill should not subsidize large scale farming at 
the expense of small farmers. It should not subsidize environmentally 
damaging crops and practices, rather the opposite. That includes corn 
for ethanol. It should encourage and subsidize the reduction of 
pesticide use and pharmacological additives to animal feed.
                                 ______
                                 
                       Comment of Allie Robinson
    Date Submitted: Saturday, May 19, 2012, 2:12 p.m.
    City, State: Toronto, CA
    Comment: Please support natural and organic farming. We do Not want 
Genetically Modified Organisms, Radiation, Pesticides, Fungicides, 
Herbicides, Sewage Sludge. We want pesticide free, GMO free, radiation 
free food that is safe for the Earth and our families!
                                 ______
                                 
                       Comment of Carol Robinson
    Date Submitted: Thursday, April 19, 2012, 11:54 a.m.
    City, State: Pittsburgh, PA
    Occupation: Business Management
    Comment: Please do not put low asset limits into the SNAP program 
as they will further limit the usage. The nonprofit sector addressing 
hunger cannot possibly fill the void when many families have no other 
gov't. assistance. SNAP and most other food programs benefit children 
who suffer in school when not receiving adequate nutrition.
                                 ______
                                 
                         Comment of D. Robinson
    Date Submitted: Friday, May 18, 2012, 5:00 p.m.
    City, State: Curlew, WA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 50-150 acres
    Comment: Organic farming should be a priority. Eliminate farm 
subsidies except for crop insurance. Eliminate the corn ethanol subsidy 
and its practice. Recognize that climate change will and is an 
emergency that needs to be addressed. I also want to stress these 
points as well:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you for accepting my comments.
                                 ______
                                 
                      Comment of Frances Robinson
    Date Submitted: Friday, May 18, 2012, 2:06 p.m.
    City, State: Tacoma, WA
    Occupation: Self-Employed
    Comment: The Federal government has done a terrible job overseeing 
this country's food system. Quit supporting profits for big ag and help 
Americans eat healthy again by supporting small, non-CAFO farms.
                                 ______
                                 
                        Comment of Gail Robinson
    Date Submitted: Friday, March 16, 2012, 2:01 p.m.
    City, State: Fort Mill, SC
    Occupation: Licensed Therapist
    Comment: I support the farm bill.
    We as a ``civilized'' society need to drop the politics and be sure 
No One in this country goes hungry, especially since we throw away 
enough food to make this happen.
    Thank you for doing the Right thing.

Gail Robinson.
                                 ______
                                 
                      Comment of Jeremiah Robinson
    Date Submitted: Friday, May 11, 2012, 2:29 p.m.
    City, State: Madison, WI
    Occupation: Engineer
    Comment: I'm e-mailing on behalf of a number of farmer and large 
animal veterinarian friends of mine who don't have time to e-mail 
themselves.
    They don't receive subsidies because they don't want to use Round-
Up and RBGH because it kills their soil and makes their cows sick. One 
in particular almost died from overexposure to Round-Up. With milk 
prices where they are, my friends can't compete with large CAFOs who 
both receive subsidies and let their soil run off into the river, or 
with international milk imports who are even worse.
    This is also a national security and economic issue, because of 
Food and Mouth and Mad Cow diseases, which only ever happen on large 
CAFO farms. Small farms don't have this issue.
    Please change the farm bill this year to remove requirements for 
herbicide/pesticide use and RBGH to get subsidies. We need provisions 
that encourage small farmers. Small farmers need a break, not big 
companies.
    Another issue they care about is labeling. Customers want RBGH-free 
milk. My friends don't use RBGH, but they're not allowed to test their 
cows and label their products RBGH-free.
    Please change the labeling rules to allow labels for farms which 
don't use hormones.
    Thank you for your consideration.
            Sincerely,

Jeremiah Robinson.
                                 ______
                                 
                      Comment of Kathleen Robinson
    Date Submitted: Sunday, May 20, 2012, 9:48 a.m.
    City, State: Smyrna, GA
    Occupation: Retired
    Comment: Mr. David Scott: Please support the Organic Farm Bill so 
GMO products, pesticides, and other chemicals are not allowed to 
further harm the health of American citizens through the food we eat. 
Thank you.
                                 ______
                                 
                       Comment of Luetta Robinson
    Date Submitted: Sunday, May 20, 2012, 8:50 p.m.
    City, State: Anchorage, AK
    Occupation: Material Handler
    Comment: I feel one of the biggest threats to our food is 
misleading labels and Monsanto. Genetically Modified Food is dangerous 
and we should have a right to know what we are eating. Organic Food is 
food grown without chemicals and should not take a small fortune to 
verify.
                                 ______
                                 
                        Comment of Lynn Robinson
    Date Submitted: Friday, May 18, 2012, 9:39 p.m.
    City, State: Merrimack, NH
    Occupation: Work in Health Insurance Industry
    Comment: It really is about time that our elected officials do what 
is right. Americans will never get healthy if government does not 
change some of these policies. We need policies that will help produce 
high quality food not the low to no quality food currently being 
produced; not to mention the huge environmental impact. Things need to 
change!
                                 ______
                                 
                        Comment of Sean Robinson
    Date Submitted: Sunday, May 20, 2012, 7:13 a.m.
    City, State: Claremore, OK
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Fruits, Greenhouse/nursery, Specialty 
Crops, Vegetables, Other
    Size: Less than 50 acres
    Comment: I am a beginning farmer who is trying to get a new way of 
growing crops started in our great state of Oklahoma. I am also part of 
a larger organization which will take this idea across the USA, but we 
need your help. We grow food aquaponically, meaning we raise fish, such 
as Tilapia, Freshwater Prawns, Perch, catfish, etc. which provides the 
nutrients to our greenhouse crops. The water is re-circulated and not 
wasted like it is in field grown crops. Did you know that 60% of the 
water used in the world is used by agriculture? We grow our corps 
locally so that we can provide the freshest produce to our citizens, 
year round, without the need to import from long distances (i.e., 
Mexico, California, Florida, China, Japan, etc. ``Two hours from 
Harvest to table.'' We also help support our local schools by providing 
funding, from our profits, in the form of grants and scholarships. We 
are not greedy like most business owners, we want to help! But we need 
your help too!
    Please consider us and the following with regards to the 2012 Food 
and Farm Bill:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled.

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system.

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies.

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.

    Thank you for all you have done for us in the past and please 
continue to do the same for us in the future. Though my voice may not 
be heard in congress directly, I hope that you will be my voice for me 
and help me to give to our community the fresh food that it so badly 
deserves. Let's keep Oklahoman's healthy and our students educated.
    Thank you for your time!

Sean Robinson,
Greenhouse 4 The Arts & Education, LLC,
Claremore, OK,
[Redacted].
                                 ______
                                 
                        Comment of Kendra Rocap
    Date Submitted: Friday, May 18, 2012, 2:15 p.m.
    City, State: Durham, NC
    Occupation: Artist
    Comment: Not only should we be supporting organic, we should be 
figuring out how to transition everything to organic. Chemicals are 
killing us and our soil!
                                 ______
                                 
                         Comment of Abby Roche
    Date Submitted: Friday, May 18, 2012, 12:51 p.m.
    City, State: Chico, CA
    Occupation: Student
    Comment: What is America miss? Better non-commodity food in our 
schools, protection of funding for farmers' markets, local foods, 
beginning farmers & ranchers, organic farming, and food safety. Please 
subsidize local small scale farmers! Don't be afraid to use other 
countries formula for sustainable foods as a protocol. We need this!
                                 ______
                                 
                          Comment of Ken Roche
    Date Submitted: Friday, May 18, 2012, 5:59 p.m.
    City, State: Lincoln, NE
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: High input fossil fuel based conventional agriculture is 
not sustainable. Please support organic beginner farmers searching for 
sustainable alternatives.
                                 ______
                                 
                         Comment of Greg Roden
    Date Submitted: Friday, May 18, 2012, 3:00 a.m.
    City, State: Berkeley, CA
    Occupation: TV Producer--www.foodforward.tv
    Comment: Most Americans have no idea what the farm bill is or how 
it works. We are hoping to change that with an episode titled 'The farm 
bill'. Small family farmers have all but ceased to exist yet Farmers 
Markets have increased 50% in the past 4 years. Still, just 2% of 
Americans shop at Farmer's markets.
    Please help us maintain and grow support for family farmers and for 
younger generations of Americans to continue in the tradition that 
built this country by:

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do Not cut the 
        Conservation Stewardship Program.

    Local organic produce is a huge economic development opportunity 
and matters to me!
            Sincerely,

Greg Roden.
                                 ______
                                 
                        Comment of Laura Rodgers
    Date Submitted: Saturday, May 19, 2012, 7:00 p.m.
    City, State: Hot Springs, AR
    Occupation: Unemployed
    Comment:Farm subsidies are part of the problem. We need lots of 
small farms, growing a wide variety of food crops--not a handful of 
huge companies scamming the system for subsidy dollars. The crop 
insurance bill is too similar to the old game to be a help to the 
public.
    Conservation of our soil and safe water must be tied to any money 
farmers receive from the government, so we will continue to have enough 
food and safe water in the future.
    Growing crops with organic methods has been proven to protect the 
soil and water more effectively than conventional farming. With organic 
farming research programs, we can probably still equal, or even surpass 
the amount of food produced by chemical farming methods.
                                 ______
                                 
                       Comment of Martha Rodgers
    Date Submitted: Tuesday, March 27, 2012, 4:31 p.m.
    City, State: Buchanan, VA
    Occupation: U.S. Navy Retired/Mom/Food Pantry Coordinator
    Comment: We live in a rural area and the number of people we help 
in our pantry has tripled in the past 4 years. Our local farmers give 
excess food to our pantry to help offset our costs to feed our 
neighbors.
                                 ______
                                 
                    Comment of Bethany Rodgers-Clark
    Date Submitted: Wednesday, May 16, 2012, 11:56 a.m.
    City, State: Mt. Vernon, WA
    Occupation: Operation Assistant for WSFFN
    Comment: America needs a farm bill that:

    1. creates jobs and stimulates economic growth,

    2. makes healthy food widely available to all Americans (I have 
        personal experience with this as my husband is unemployed and 
        we are on food stamps and it is hard to get healthy food with 
        $136 per month for a family of 3)

    3. protects our natural resources,

    4. invests in the next generation of farmers and ranchers by making 
        it economically viable for young people to go into these 
        professions,

    5. supports creativity for tomorrow's farmers and food 
        entrepreneurs.
                                 ______
                                 
                       Comment of Heather Rodman
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Boise, ID
    Occupation: Administrative Assistant
    Comment: I would like to see the farm bill supporting more of a 
diversity of farming types--family-owned farming needs more support, 
and ConAgra and other mega-farming corporations do not need the 
financial help that they receive. We need to be supporting more 
sustainable farming. Thank you for your consideration in this matter.
                                 ______
                                 
                      Comment of Michael Rodriguez
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Washington, D.C.
    Occupation: Teacher
    Comment: Especially for non-producers, it is detrimental that 
farms, farmers and the food that they produce be funded without 
concessions to big corporations. Food needs to remain food.
                                 ______
                                 
                   Comment of Iderah Roeck-Akarkarasu
    Date Submitted: Friday, May 18, 2012, 2:19 p.m.
    City, State: Glen Allen, VA
    Occupation: Yoga Teacher
    Comment: Please really think about where your food is coming from. 
Take the time to learn about food and your body and how they work 
together. Think about your children.
                                 ______
                                 
                       Comment of Clarissa Roewe
    Date Submitted: Wednesday, May 09, 2012, 3:05 p.m.
    City, State: San Benito, TX
    Occupation: Manager San Benito Food Pantry
    Comment: Food Security! In a small town of 25,000 over 16,000 
people have presented themselves to receive free food. Their avg. 
income is $690.00 average snap benefit $120.00. Last week there was a 
break in at the food pantry, though unsuccessful. They were stealing 
wieners. Retail 100 lbs of wieners is about $82.00. We need to do more, 
not less. As one client said, ``Forget about healthcare, Dying is an 
option as I cannot afford to live.'' Think about who you really 
represent. Poor people may now be so beat up they no longer care to 
vote, but when they really don't have any food they are going to steal 
it from you and your compadrs.
                                 ______
                                 
                       Comment of Brianna Rogers
    Date Submitted: Wednesday, May 02, 2012, 10:45 a.m.
    City, State: Vineyard Haven, MA
    Occupation: Student--Brown University 2012
    Comment: Dear Mr. Keating,

    I live in Vineyard Haven, and I am a member of your district. I am 
a senior at Brown University, and I had some concerns regarding the 
upcoming farm bill. Two specific areas that I would like to see 
addressed are Title IV and Title X. Title IV is especially important 
for the residents of Martha's Vineyard, many of which are heavily 
reliant on food assistance and nutrition programs. Also, Title X will 
aid in addressing the health needs of many individuals on the island. 
Though food assistance programs are beneficial, if the food is not 
healthy and nutritious then the point of the program is missed. I 
believe an increase in funding for Title X to increase specialty crops 
along with continued support for Title IV is the best way to create a 
farm bill that will have the most benefit for the people of Martha's 
Vineyard. Good luck in the upcoming negotiations, and I hope you will 
take my comments into consideration.
            Sincerely,

Brianna Rogers.
                                 ______
                                 
                        Comment of Terry Rogers
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: East Alton, IL
    Occupation: Professional Musician
    Comment: I Only buy organically grown food . . . vegetables, fruit, 
nuts . . . free range, organically fed chickens . . . yogurt and cheese 
made from farm animals that are Not given numerous additives and 
chemicals. This is the movement of the entire country. Do Not ignore 
us! Make sure organic farms are protected and subsidized!
                                 ______
                                 
                        Comment of Thomas Rogers
    Date Submitted: Friday, May 18, 2012, 5:16 p.m.
    City, State: Eagle, ID
    Occupation: Teacher and Legal Researcher
    Comment: Dear Agriculture Committee,

    Agriculture policy needs to accommodate and support small scale and 
sustainable family agriculture as well as the corporate mode that has 
come too much to dominate American agriculture.
    There needs to be concern about the land and its care and 
preservation as well as just production of commodities.
                                 ______
                                 
                        Comment of Nina Rogowsky
    Date Submitted: Friday, May 18, 2012, 5:22 p.m.
    City, State: Watertown, MA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: I am an intern on a 27 acre community farm in Natick, MA. 
Many of the agricultural laws do not apply to a small, organic, 
integrated farm like the one I work on, yet it is clear to me that the 
way we farm uses best practice agricultural methods. I want to see the 
law support more farms like the one I work on.
                                 ______
                                 
                         Comment of Kwanho Roh
    Date Submitted: Sunday, May 20, 2012, 11:26 a.m.
    City, State: Gaithersburg, MD
    Occupation: Researcher
    Comment: Small local organic farms are precious for people. They 
produce healthy fresh foods to local people so they should be 
protected.
                                 ______
                                 
                        Comment of Cheryl Rohrer
    Date Submitted: Friday, May 18, 2012, 11:55 a.m.
    City, State: Pittsford, NY
    Occupation: Stay-at-Home Mom
    Comment: It sucks that our generation and future generations' 
health is risk because of money, power and greed. Politicians, 
Lobbyists, Monsanto . . . you suck!
                                 ______
                                 
                        Comment of Carmen Rojack
    Date Submitted: Sunday, May 20, 2012, 2:05 p.m.
    City, State: Hamburg, NJ
    Occupation: Dental Hygienist
    Comment: I want ethical organic standards I want to see genetically 
engineered foods labeled and mandatory testing by outside agencies 
required for GMOs. God created our seeds and their blueprint should be 
held as sacred, not subject to change . . . Amen
                                 ______
                                 
                        Comment of Tanya Roland
    Date Submitted: Friday, May 18, 2012, 9:53 a.m.
    City, State: Falls Church, VA
    Occupation: Teacher
    Comment: Since our ecology is suffering greatly from toxification, 
much of which is originated on farms, use of chemicals needs to be 
greatly reduced in farming and agriculture by law. In the meantime, 
those who protect our land, water and air by strident organic practices 
should be benefitted by subsidies and tax breaks, those of which huge 
agribusiness have materially benefitted for so long and at huge 
ecological cost. Anyone in any industry who continues to put all of us, 
all of life at risk need to be punished. Our priorities as a nation 
need to be put in order. Life itself, protecting and purifying nature 
as we know it has to be at the top of the list. Anything else is 
suicide.
                                 ______
                                 
                        Comment of Sheryl Roller
    Date Submitted: Tuesday, March 20, 2012, 4:09 p.m.
    City, State: Albuquerque, NM
    Occupation: Caring For Elderly Parent
    Comment: I want to support parts of the farm bill that help to feed 
hungry people, that have fallen on hard times, etc. Programs such as: 
SNAP, TEFAP, etc.
            Thank you,

Sheryl Roller.
                                 ______
                                 
                         Comment of Nora Roman
    Date Submitted: Friday, May 18, 2012, 2:33 p.m.
    City, State: San Francisco, CA
    Occupation: Registered Nurse
    Comment: I want a farm bill that supports non toxic, organic 
sustainable food. Close All Factory Farms And Especially Factory Animal 
Farms. Outlaw All Poisons In Agriculture And All Food Additives. No 
More Preservatives That Kill Us Later. No More Lab Made Colors That 
Kill Us Later. No More Processed Foods That Kill Us Sooner . . . 
    Our food policies are destroying our planet and pretty soon you 
won't be able to eat all that cheap crap . . . Wake Up . . . 
                                 ______
                                 
                        Comment of Juliet Romano
    Date Submitted: Friday, May 18, 2012, 3:34 p.m.
    City, State: Seattle, WA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: I am part of a family that owns/manages 15,000+ acres in 
NE Arkansas. Currently, we still practice conventional farming methods 
because the laws that are currently in place overwhelmingly support 
these practices. It would be much easier to becoming more `green' and 
healthful if the government subsidized crops that are grown in such a 
way that encourages good health and environmental sustainability--
farming for the future and not just today.
                                 ______
                                 
                        Comment of Lynne Romans
    Date Submitted: Friday, May 18, 2012, 10:14 p.m.
    City, State: Eugene, OR
    Occupation: Education and Home Gardening
    Comment: I support the independent family farmer, not for-profit 
agribusiness. Farmers overwhelmingly steward the land. Agribusiness, 
unhappily and overwhelmingly, poison the land and the resources.
    Support the farmer!
    Do it now.
                                 ______
                                 
                        Comment of Jonathan Rome
    Date Submitted: Friday, May 18, 2012, 3:55 p.m.
    City, State: Hartford, CT
    Comment: I am just getting clean and it helps my girlfriend and I 
to concentrate on saving money so we can build a better life for 
ourselves. Please understand just the little many things that may seem 
insignificant actually help many lives so much! The little things that 
people take for granted happen to be the SNAP program. Thanks a lot!
                                 ______
                                 
                      Comment of Christina Romero
    Date Submitted: Saturday, April 14, 2012, 3:59 a.m.
    City, State: Montebello, CA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Local, sustainable, and organic farming and food 
production are essential to the future of this country. Small farmers 
and potential farmers should be given adequate funding and resources to 
maintain their business and to grow the agriculture business. I think 
the farm bill should be taken as serious as any other legislation that 
is vital to this country.
                                 ______
                                 
                          Comment of Anna Ronk
    Date Submitted: Saturday, May 19, 2012, 1:49 p.m.
    City, State: Paw Paw, MI
    Occupation: Health Care Worker/Educator
    Comment: Please don't allow cuts in the farm bill that promote safe 
food production. This statement applies to many facets in the farm bill 
GMO crops are not safe for us to eat. Many other countries have banned 
GMO's.
                                 ______
                                 
                        Comment of Howard Rontal
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: Potomac, MD
    Occupation: Massage Therapist and Teacher
    Comment: Really, this is very important. I believe that big 
business has an important role to play in the national economy, 
including agribusiness but I do want food stamp money, research on 
organic farming, and other such programs sacrificed so that they can 
make a another dime a share in profits.
                                 ______
                                 
                        Comment of Thomas Rooth
    Date Submitted: Sunday, May 20, 2012, 11:38 a.m.
    City, State: Hollister, CA
    Occupation: High School Teacher
    Comment: Dear Mr. Farr,

    It is imperative to support the Local Food, Farms, and Jobs Act 
(H.R. 3286), the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236), and the Conservation Stewardship Program, as well as provisions 
to protect organic farmers, for clear and present reasons: local food 
has more nutrients, fewer additives, better flavor, and contributes to 
local economies; beginning agricultural businesses need subsidies far 
more than large, established agribusinesses; and the quality of food 
must be promoted to battle the ever-growing problems of American 
reliance on processed foods and its inevitable result, obesity, which 
is becoming so prevalent that it threatens to squish quality health 
care as well as quality life styles with its increasing weight on our 
society. Do the right thing and hold Republican fat cats' feet to the 
fire. Settle for no less than to ensure better quality food, and thus a 
better life, for everyone.
                                 ______
                                 
                       Comment of Ammathyst Rose
    Date Submitted: Friday, May 18, 2012, 1:45 p.m.
    City, State: Austin, TX
    Occupation: Massage Therapist
    Comment: There should be greater limits to crop insurance 
subsidies. There also needs to be top priority consideration for land, 
soil, and our environment. Please re-attach the soil erosion and 
wetland conservation requirements to crop insurance programs.
    Thank you.
                                 ______
                                 
                          Comment of Gail Rose
    Date Submitted: Friday, May 18, 2012, 3:49 p.m.
    City, State: North Hills, CA
    Occupation: Retired Elementary Teacher
    Comment: Be sure to treat all animals humanely, none in cages, feed 
their natural types of food, no chemicals. Give fair wages to farm 
workers, provide housing and healthy living conditions for all who work 
on farms. Get off this money addiction; treat others as you would want 
your family to be treated.
    All this persecution will only come back to haunt you; you get what 
you give, Karma or the law of physics tell us that.
    Wake up! You're not fooling anyone but Yourselves!
                                 ______
                                 
                         Comment of Hollis Rose
    Date Submitted: Friday, May 18, 2012, 4:35 p.m.
    City, State: Portland, OR
    Occupation: Retired
    Comment: In this time of obesity and out of imagination medical 
costs to individuals and government, I believe one of our highest 
priorities should be to support individual health (including nutrition, 
education and poverty). With this in mind the Farm bill should support 
local, small farmer's, organic farmers, limit control and takeover by 
the large corporations. Support of organic and pesticide free foods 
supports the environment and general health. The administrators, 
designers/planners of programs need to be qualified in the most up to 
date organic and pesticide free farming, on local community growth and 
development and on ways to support and create revitalized environment 
and land development. Our soil damage is huge and growing in rotation 
on farms, preserving our land for future generations is imperative.
    It is no longer feasible to live short sighted. We must think and 
develop, planning for many future generations.
            Sincerely,

Hollis Rose.
                                 ______
                                 
                         Comment of Sarah Rose
    Date Submitted: Thursday, April 05, 2012, 9:49 p.m.
    City, State: Durham, NC
    Occupation: Nutritionist
    Comment: I am writing to express my concerns for the 2012 Farm 
Bill. As a future Registered Dietitian I see the farm bill as an 
important part of the United States health in many ways.
    The farm bill helps to protect the job of farming and insure that a 
farmer can make a fair wage. The farm bill also allows farmers to grow 
fresh fruits and vegetables for our citizens to eat. With healthcare 
reform in limbo and budget cuts continually debated I feel it is 
important to fund health in the most basic sense, through the access to 
healthy foods like fruits, vegetables, and whole grains. The farm bill 
allows crops to be sold at a fair price to farmers and consumers thus 
allowing disease prevention to be affordable. Additionally the farm 
bill helps to fund nutrition assistance programs such as SNAP (formerly 
Food Stamps). This and other programs provide access to healthy foods 
to prevent food insecurity which ultimately promotes health and well-
being and the economic security of families.
    As we move toward times of excelling population growth and 
increasing food costs I would like to take the time to express the 
importance of adequate funding of the farm bill. This provides job 
security to farmers, allows them to pass their land on to their 
families while practicing sustainable conservation methods, and 
provides food and food assistance to needy families. Please make sure 
that the farm bill is adequately funded for future generations.
                                 ______
                                 
                         Comment of Sheryl Rose
    Date Submitted: Friday, May 18, 2012, 1:31 p.m.
    City, State: Berkeley, CA
    Occupation: Freelance Editor
    Comment: I would like the House Agriculture Committee to fully fund 
conservation programs and to maintain strong reliance on organic, local 
food production. I would also like the committee to defund corporate 
agribusiness completely and to take a strong stand against the use of 
toxins and poisons in farming in our country. Thank you for considering 
my views.
                                 ______
                                 
                        Comment of Victoria Rose
    Date Submitted: Friday, May 18, 2012, 10:08 p.m.
    City, State: Snohomish, WA
    Comment: We support H.R. 3286 & H.R. 3236 vehemently! People have 
the inalienable right to good, healthy food and totally oppose Any more 
funding for BigAG, just to line their greedy pockets knowing that they 
do not care at all about healthy, good nutrition for our nation's 
population. We are sick of the dishonest, immoral people in this 
administration and in BigAg. Do you think that Monsanto's executives 
families eat food that is saturated with chemicals? I think not--they 
probably have their own special gardens bought with taxpayer monies. We 
will not allow this, we will stand up and fight and do whatever it 
takes to bring them down to the dirt that they pollute, period!
                                 ______
                                 
                     Comment of Lawrence Rose, M.D.
    Date Submitted: Friday, May 18, 2012, 8:29 p.m.
    City, State: Mill Valley, CA
    Occupation: Public Health Physician
    Comment: Supporting Organic food production is a very important 
public health issue. The high prices of organic fruit and vegetables 
and the lack of availability to most of our low income population is 
contributing to the mortality and morbidity disease rates nationally. 
Obesity, diabetes, cardiovascular events, and strokes are caused by 
national dietary and nutritional patterns.
                                 ______
                                 
                         Comment of Adele Rosen
    Date Submitted: Friday, May 18, 2012, 3:42 p.m.
    City, State: Tesuque, NM
    Occupation: Wrangler
    Comment: I depend on the farmers' market to buy my food. It is the 
greatest gift when you don't grow your own. I believe that small farms 
are at the core of true American values and certainly the most healthy 
lifestyle. It is of great benefit to this whole country to support 
organic farming. I don't support chemical pesticides which have proven 
to be detrimental to humans and to the Earth.
                                 ______
                                 
                        Comment of Andrea Rosen
    Date Submitted: Friday, May 11, 2012, 9:18 p.m.
    City, State: Washington, D.C.
    Occupation: Retired Fundraiser
    Comment: First and foremost, I urge you to pass a farm bill that 
reduces (on the way to eliminating) subsidies for corn and soy. They 
are overproduced to the detriment of other healthful crops, and in the 
case of corn, to the detriment of the health of Americans, overweight 
and obese on corn sweeteners and corn-fattened beef. A farm bill should 
invest in innovation around organic farming. It should invest in future 
farmers. Those are my priorities.
                                 ______
                                 
                        Comment of Barbara Rosen
    Date Submitted: Friday, May 18, 2012, 11:50 a.m.
    City, State: Brooklyn, NY
    Occupation: Retired Teacher
    Comment: I am dismayed that so much of our food supply is in the 
hands of big business and that the result is the steady degradation of 
our water, soil and diet. And that so much cruelty to animals is 
condoned. It must stop.
                                 ______
                                 
                       Comment of Diane Rosenberg
    Date Submitted: Friday, May 18, 2012, 12:47 p.m.
    City, State: Fairfield, IA
    Occupation: Writer and Event Organizer
    Comment: I support a farm bill that supports the development and 
expansion of organic food production. I support:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

    I do not support the $4 million in cuts to the organic research 
development nor cuts the Beginning Farmers Program.
    I absolutely do not support cuts to the Farm Stamp program or any 
other nutrition program. That is purely immoral. Do not take food out 
of the mouths of hungry people to hand it over to profitable industrial 
agribusiness. That is just wrong. Do you know how many people are 
hungry in our country? Would you like to experience that yourself? I 
don't think so.
    Please do the right thing and design a farm bill that makes the 
health of Americans and our environment and the livelihood of farmers 
and farmer workers come first over the interests of corporate 
agriculture lobbyists.
    Thank you.

Diane Rosenberg.
                                 ______
                                 
                       Comment of Jeff Rosenberg
    Date Submitted: Saturday, May 19, 2012, 9:23 p.m.
    City, State: Arlington, VA
    Occupation: Psychologist
    Comment: Dear Madame or Sir:

    My comments are twofold:

    (1) The cost of a product should reflect all of its costs (i.e., 
        externalities). If there are runoffs that affect water quality, 
        that should be reflected in cost for example. My strong hunch 
        (e.g., sugar with all its health implications) is that often 
        not only is the full cost of an item not reflected in its price 
        but that it is the reverse--it is subsidized.

    (2) There should be full disclosure for consumers regarding the 
        products they buy. This should include how products are 
        produced and prepared. ``Conventional'' production does not 
        necessarily equate with no need for disclosure. Let consumers 
        make decisions with at least the opportunity to have knowledge 
        of what they are buying and at a price that fully reflects its 
        costs and health implications.
            Best,

Jeff Rosenberg,
Arlington, VA.
                                 ______
                                 
                       Comment of Lisa Rosenberg
    Date Submitted: Friday, May 18, 2012, 11:50 p.m.
    City, State: Orangeburg, NY
    Occupation: Registered Nurse
    Comment: Please help the farmers and stop genetically modifying 
food. All the processed foods are increasing the cost of health care 
because they are very bad for the body after years of ingesting these 
poisons we are seeing increased diabetics and heart disease. Promote 
the natural farmers.
                                 ______
                                 
                      Comment of Eleanor Rosenthal
    Date Submitted: Friday, May 18, 2012, 6:29 p.m.
    City, State: San Francisco, CA
    Occupation: Alexander Teacher
    Comment: Please stop subsidizing big, corporate agriculture and 
encourage growers of fruits, vegetables, etc., instead. The farm bill 
is very important to the nation's health and economy, and it's been 
slanted all wrong for many years.
                                 ______
                                 
                      Comment of Gregory Rosenthal
    Date Submitted: Friday, May 18, 2012, 3:40 p.m.
    City, State: Schenectady, NY
    Occupation: University Instructor/Doctoral Student
    Comment: Dear House Agriculture Committee members,

    I am a consumer with great worries about the health and safety of 
our food supply. One of the big problems is the role of huge 
agricultural corporations, like Monsanto, for example, setting state 
policy; instead, we should be focused on supporting local and small-
scale organic farmers, not giving away perks to huge corporations.
    Specifically, I call on you to fully endorse all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286). I call on you to fully 
fund conservation programs, such as the Conservation Stewardship 
Program, and to make sure that enrollment in any new insurance 
subsidies are tied directly to compliance with conservation programs. I 
call on you to implement all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236). And I call on you to maintain the 
EQIP Organic Initiative.
    Thank you for your consideration on this important matter.
                                 ______
                                 
                         Comment of Carla Rosin
    Date Submitted: Sunday, May 20, 2012, 12:25 a.m.
    City, State: Santa Barbara, CA
    Occupation: Board of Trustees, SB Food Bank
    Comment: I just spoke with Wes Roe regarding a project I am working 
on through the new food bank Grow Your Own Way program. We both thought 
you would be interested in this. I have included a brief outline of the 
program below. I am also working on an extension of the program to 
include an Eco Village project with the support of the FoodBank, 
Fairview Gardens, SBCC Sustainability Program and ultimately UCSB to 
have an alternative ag and building site to research the possibilities 
of a working urban agricultural model on the Bishop Ranch property. The 
idea being that if we have a model in place. Santa Barbara County has 
more control of what happens with future development.
    I would be very grateful to be able to speak with you in depth 
about the potentials of a project like this and to get your feedback 
and insight into the logistics of implementing a project like this as 
an extension to UCSB. very much like what is happening at UC Santa Cruz 
and UC Davis.
    I look forward to hearing from you. Thank you for your 
consideration.
            All the Best,

Carla Rosin,
Board of Trustees,
FoodBank of Santa Barbara,
[Redcated].

    I got together with the Santa Barbara Permaculture Network to put 
on a benefit for an exciting new program for the FoodBank of Santa 
Barbara, Grow Your Own Way. The program's mission is to teach 
underserved individuals how to grow some of their own food. Currently, 
as a member of the Board of Trustees for the FoodBank of Santa Barbara, 
I have been working with Fairview Gardens to fund an organic farming 
internship program to allow those individuals who would like to grow 
food for a living the opportunity to learn the skills needed to farm 
for profit. The guide lines of the internship and the monitoring of the 
interns will be as determined by Mark Tolefson, Director of Fairview 
Gardens. This program will be working in cooperation with local 
farmers. With grant money, we hope to take the burden off the farmers 
participating in the program. With the completion of the internship, 
the beginning farmer has the opportunity to then lease some land from 
the farmer and with guidance and as prescribed by a list of guaranteed 
cash crops to be grown for Farmer Direct and the FoodBank for a fair 
market value. This program will be a flagship program for food banks 
across the country. I think it is very important for everyone to 
realize the importance of the local food banks and that there is an 
effort, here in Santa Barbara to make changes in the way the local food 
systems operate. After all, is it not more sustainable for an 
organization to be able to offer the individuals it serves not just a 
hand out but a hand up, therefore empowering them to become a 
contributing member of their community.
    What the program will provide to the community:

  <bullet> a resurgence of farmers in the work force . . . currently 
        the average age of farmers across the country is 50.

  <bullet> in doing so, we increase the chance of saving local farms 
        from developers.

  <bullet> job training and job opportunities for the underserved

  <bullet> it will create a stronger awareness as to how important 
        sustainable agriculture is to the survival of this community.

  <bullet> it will create a stronger relationship between the food bank 
        and local farmers therefore making local produce more 
        accessible.

  <bullet> it will create an opportunity for farm research projects to 
        increase the productivity of farms in the area.

  <bullet> it will provide educational programs for the interns as well 
        as the public to introduce sustainable growing methods.

  <bullet> it will provide access to locally grown organic seed for the 
        program and the local seed bank.

  <bullet> it will host a weekly farmers market with farmers 
        participating in the internship program.
                                 ______
                                 
                         Comment of Angela Ross
    Date Submitted: Thursday, May 03, 2012, 10:35 a.m.
    City, State: Riverside, CA
    Occupation: Sales Associate
    Comment: We must protect those in hunger--people needing SNAP, 
TEFAP, CSFP and other aid programs.
    Corporations will always find their footing--they pay millions of 
dollars every year to economists, lawyers, CPAs and lobbyists to make 
sure they do.
    The hungry only have citizens and the programs citizens have 
created to protect widows, orphans, the homeless, the stranger--those 
in need.
    Please do the job we need done to protect the least protected. Let 
corporations do their own job of protecting themselves.
    Thank you for your patient attention to this vital need.
                                 ______
                                 
                        Comment of Christy Ross
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: Washington, D.C.
    Occupation: Educator
    Comment: I want healthier, more nutritious food. I want more 
organic food. I want the government to be subsidizing real vegetables 
and fruits, and not just corn, dairy, and factory farming. This is 
critical to our personal health, and to our nation's health, and to our 
environment. Please listen!
            Thank you,

Christy Ross.
                                 ______
                                 
                        Comment of Douglas Ross
    Date Submitted: Friday, May 18, 2012, 12:31 p.m.
    City, State: Locke, NY
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Livestock, Poultry/poultry products, 
Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: To cut funding for organic and sustainable farming and 
nutrition education at a time when America faces an obesity epidemic 
and a cancer rate of 1-in-4 seems totally absurd. Consider that no 
universal health care coverage exists in our country and Medicare and 
Medicaid are both facing cuts as well, and it appears we may well be 
setting the stage for a future nation-wide health crisis the likes of 
which we cannot fathom. Please educate yourselves and the public at 
large as to the importance of sustainable, organic foods in a 
nutritionally balanced diet.
                                 ______
                                 
                          Comment of Jodi Ross
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: New Salem, MA
    Occupation: Retired
    Comment: We need to support organic methods and small farms. The 
economy and ecosystem health depend on it! With the bees dying off, 
where will we be? Hand-pollinating every single plant? With superweeds 
being created by Round up, we'll wind up worse off than we started. 
It's time to adopt a sensible farm policy that doesn't create more 
problems than it solves.
                                 ______
                                 
                         Comment of Ollie Ross
    Date Submitted: Friday, April 13, 2012, 8:30 a.m.
    City, State: Millican, TX
    Producer/Non-producer: Producer
    Type: Livestock, Vegetables
    Size: 151-300 acres
    Comment: I am a member of the Texas Small Farmers and Ranchers/
Community Based Organization.
    We would like the Committee to assist us in outreach to minority 
youth in ways to get them to consider agriculture and ag-related fields 
and industries a life-pathway choices. We would also like help/
suggestions on how we can better partner with others (retail/wholesale, 
etc.) to market our livestock and good.
                                 ______
                                 
                         Comment of Robert Ross
    Date Submitted: Friday, May 18, 2012, 12:23 p.m.
    City, State: Staten Island, NY
    Occupation: Musician/Educator
    Comment: Industrial agriculture and toxic chemicals are killing the 
soil and the organisms that live in it that make it fertile. 
Monoculture is also killing the soil. These practices are not found 
anywhere in nature and simply do not work. Monoculture requires larger 
and larger doses of toxic chemicals an ever escalating war on pests. 
The soil gets weaker and the crops get more fragile and makes them 
vulnerable to pesticide resistant pests. We Must adopt a national 
campaign of organic agricultural practices for the benefit of the soil, 
crops, our own health, and the health of the planet.
                                 ______
                                 
                         Comment of Karen Rossi
    Date Submitted: Friday, May 18, 2012, 5:06 p.m.
    City, State: Richmond, KY
    Occupation: Recently Graduated Disabled Student
    Comment: I support these things:

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> No cuts to the food stamp program.

    <ctr-circle> more intelligent qualifications for the food stamp 
            program food-wise. I should not be able to buy Easter 
            candy/full-sugar soda with them while I cannot buy an 
            infinitely more nutritious meal replacement. It's one thing 
            if I try to buy a bottle of vitamin pills (not covered for 
            good reason), while it's another if I buy something with 
            macronutrients (protein powder, meal replacements, etc.) 
            that is in either liquid or powder form.

    <ctr-circle> In addition, the standards for what ``supplements'' 
            qualify should be clearer, and readily available to All 
            grocery store managers.
                                 ______
                                 
                       Comments of J. Ronald Roth
    Date Submitted: Friday, May 18, 2012, 9:24 a.m.
    City, State: Towson, MD
    Occupation: Retired
    Comment: We must clean up the food we are feeding our citizens! No
    Date Submitted: Friday, May 18, 2012, 5:50 p.m.
    Comment: I cannot believe you would cut funding for Organic 
farming, which is so much better for the land and citizens of the U.S. 
It is time to cut funding to big Ag which does little more than to feed 
us unhealthy foods. 90% of what I eat is Organic, free range and grass 
fed and I will not be spending many Medicare dollars.
    We need healthy food to have healthy citizens!
                                 ______
                                 
                          Comment of Stan Roth
    Date Submitted: Friday, May 18, 2012, 9:55 p.m.
    City, State: Jenison, MI
    Occupation: Community Organizer for Older Americans
    Comment: Monsanto is not a food company. It is a chemical company 
ruining the land and now going abroad to spread their toxicity. This is 
not sustainable agriculture. Sustainable agriculture is done by real 
farmers growing real food. End the stranglehold they have on our bad 
food policy. Ever wonder why we have such a high rate of cancer?
                                 ______
                                 
                       Comment of Janice Rothrock
    Date Submitted: Tuesday, May 15, 2012, 12:51 p.m.
    City, State: Arcata, CA
    Occupation: Retired Farm Owner
    Comment: We do not need to be subsiding GMO crops and corporate 
farming with their high use of herbicide, insecticide, and chemical 
fertilizers . . . crops which often are used for fuel for machines 
without concern for human food. We do not need to be subsidizing Texas 
brain surgeons who build second homes and call them farms--We Do Need 
safe, pesticide-free (or the choice) of food grown closer to 'home' and 
the economic benefits that accompany.
                                 ______
                                 
                     Comment of Jennifer Rothstein
    Date Submitted: Sunday, May 20, 2012, 11:21 p.m.
    City, State: Mequon, WI
    Occupation: Ozaukee County Board Supervisor, District 26, Chair 
Land Preservation Board of Ozaukee County
    Comment: Dear House Agriculture Committee,

    I respectfully request that you fund the PACE program for the 
preservation of the future of Agricultural soils. Once the soils are 
lost to residential or commercial development, they are gone forever. 
Our citizens spoke when they chose a cow, an ear of corn and a wheel of 
cheese to represent our state on the Wisconsin quarter. By purchasing 
agricultural conservation easements, we ensure the future of 
agriculture and farming in our state. May this coin never become 
historic for lack of forethought in preserving our farming soils.
    Please consider ways to support and assist young people who would 
become our future farmers.
    It would be a real move forward if a way could be found to allow 
farm fresh foods in our schools and senior centers.
    Finally, please look carefully at any legislation that would 
possibly compromise our waters, whether they be surface or ground 
waters. As we have discovered from the sad situation regarding the Fox 
River, remediation costs are astronomical. Precious, potable water is 
lost, people's health are adversely affected and the quality of life is 
tremendously diminished when water is not safe to drink. We are blessed 
in this state with a precious resource--water. It is important now and 
will continue to grow in importance in the decades to come. Let us lead 
the way in setting standards for this resource. Our financial future 
and our health will depend greatly on how we treat this resource.
    Thank you for your consideration.
            Sincerely,

Jennifer Rothstein,
Ozaukee County Board Supervisor.
                                 ______
                                 
                         Comment of Pat Rougeau
    Date Submitted: Saturday, May 19, 2012, 9:01 p.m.
    City, State: Oakland, CA
    Occupation: Retired
    Comment: We need a fair and smart bill--that promotes the heath of 
the nation, that encourages organic produce, that doesn't pick winners 
and losers, that doesn't continue legacy of entrenched subsidies and 
barriers to entry for new producers, that prevents fraud and abuse. We 
need a bill worthy of our nation and the idealism of the coming 
generation.
            Thank you,

Pat Rougeau.
                                 ______
                                 
                         Comment of Cathy Rowan
    Date Submitted: Friday, May 18, 2012, 4:46 p.m.
    City, State: Bronx, NY
    Occupation: Director, Socially Responsible Investments
    Comment: Strengthen food aid programs by purchasing food on local 
and regional levels. This would get food to those in need more quickly 
and would be a more efficient use of taxpayers' dollars. It would also 
improve the capacity of local, small farmers in the countries most 
needing to improve their food production.
                                 ______
                                 
                        Comment of Thomas Rowan
    Date Submitted: Friday, May 18, 2012, 1:05 p.m.
    City, State: Bronx, NY
    Occupation: Chaplain
    Comment: I am also a member of a CSA in the Bronx where we got 
organic vegetables every week starting in June. It is also a way to 
assist the farmer to remain an independent farmer.
                                 ______
                                 
                        Comment of Sophia Rowin
    Date Submitted: Friday, May 18, 2012, 1:46 p.m.
    City, State: Castaic, CA
    Occupation: Self-Employed
    Comment: Please do not cut the funding for organics. We need our 
food to be clean, simple and healthy. Organics can be a start to 
educating people on how to eat healthy, has the potential to reduce 
obesity and can bring medical costs down, so our government would not 
have to subsidize medical care.
                                 ______
                                 
                        Comment of Karen Rowland
    Date Submitted: Friday, May 18, 2012, 4:53 p.m.
    City, State: Papaaloa, HI
    Occupation: Business Consultant
    Comment: Our country needs to bring back small farms as a means to 
earn a living--our health and economy are depending on it. We need to 
take the government out of food regulation so people can buy what they 
want from local farms and get the quality they deserve and demand. 
Until stop using chemicals to grow our food cancer and other illnesses 
will continue to rise unlike many other nations. Corporate profits in 
the production of toxic chemicals and GMO seeds have no place in our 
food supply and are causing most of the current problems we have--when 
will we come together and do the right thing for our land, health and 
economy of our country?
                                 ______
                                 
                      Comment of Kimberly Rowlett
    Date Submitted: Friday, May 18, 2012, 11:52 a.m.
    City, State: Cleveland, TN
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: We badly need to preserve rural, quiet, backwoods, 
historic and natural America for future growth in the farming industry! 
We do not need more ex/sub/urbanization or (spot) rezoning, or metro 
annexation of any kind that is oppressing environmental needs of 
farmers and their families. The biggest thing is to give long-term 
preservation and protection for all rural areas, to preserve 
independent (identities and Gov) cities/townships, and counties 
everywhere! Preserve the rural, natural landscape of rural America 
everywhere so farmers can concentrate while working with livestock, 
managing their farms, its resources, and more.
                                 ______
                                 
                        Comment of Genny Rowley
    Date Submitted: Friday, May 18, 2012, 10:39 a.m.
    City, State: Dallas, TX
    Occupation: Operations Personnel, Urban Acres Market
    Comment: I work as a part-time employee at Urban Acres, a small 
business in the southern part of Dallas. There is very little access to 
fresh, local produce in our neighborhood, and our store works with 
small-scale family farms to bring beautiful, fresh food into our 
neighborhood. There is more demand than we can supply--in part because 
there are not enough organic farms in our area to help meet the 
nutritional needs of our community. I support the initiatives of Slow 
Food USA listed below, and am asking for policies that benefit the 
members of my community, and our family farmers, who work hard all year 
at a job that is financially very challenging. They need our support, 
far more than large-scale agriculture. Thanks for listening the issues 
raised below.
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                       Comment of Marjorie Rowley
    Date Submitted: Saturday, May 19, 2012, 2:30 a.m.
    City, State: San Diego, CA
    Occupation: Retired Educator
    Comment: Please support organic research. Also, I am greatly 
concerned about genetically modified foods. Please support all 
legislation to require labeling and especially stop this harmful 
modification of foods.
                                 ______
                                 
                         Comment of Monika Roy
    Date Submitted: Friday, May 18, 2012, 9:32 p.m.
    City, State: Sacramento, CA
    Occupation: Program Assistant, Ecological Sanitation Organization
    Comment: As someone not directly farming commercially, but working 
in the Ecological Sanitation (EcoSan) field producing compost derived 
from human feces, I am linked to the farming world and help produce a 
product that farmers are buying. Our values are based on small-scale 
and organic agriculture, and the compost that we produce is meant to be 
reintegrated into the land. I would like to see a farm bill that 
supports the practices of small-scale agriculture in particular, and as 
organic as possible.
    I would like to see more funding that increases the learning 
opportunities and exchanges between students of all academic levels 
with small-scale farmers. I want to see cultural gatherings with 
communities around the country, sharing knowledge and promoting healthy 
eating habits and lifestyles.
    I want to see less agro-business in control of the food supply and 
less food subsidies sent to countries outside of the U.S. Thank you.
                                 ______
                                 
                           Comment of Pam Roy
    Date Submitted: Tuesday, May 15, 2012, 1:35 p.m.
    City, State: Santa Fe, NM
    Occupation: Executive Director of Farm to Table, NM
    Comment: Dear Congressman,

    We look forward to your support of the following programs:

  <bullet> Specialty Crop Grant Program increases.

  <bullet> Community Food Projects Program--$10 million per year to 
        help communities build food self-reliance.

  <bullet> Senior Famers Market Nutrition Program level funding at $20 
        million.

  <bullet> Farmers Market and Local Food Promotion Program--$20 million 
        per year to develop farmers market capacity and create food 
        hubs to connect farmers with schools, hospitals, grocery stores 
        and other markets.

  <bullet> Hunger-Free Community Incentive Grants--An average of $20 
        million per year for a new SNAP local fruit and vegetable 
        incentive grant program at farmers markets and other healthy 
        food retailers.

  <bullet> Outreach and Technical Assistance for Socially Disadvantaged 
        Farmers and Ranchers Program (Section 2501).

    Thank you very much for your continued support of these programs.
            Sincerely,

Pam Roy,
Farm to Table and the NM Food & Ag Policy Council,
[Redacted],
Santa Fe, NM.
[Redacted].
                                 ______
                                 
                        Comment of Sharon Royal
    Date Submitted: Friday, May 18, 2012, 1:53 p.m.
    City, State: Seattle, WA
    Occupation: Psychotherapist/Mom
    Comment: This is one of the very most important movements today.
    Well-considered legislation regarding all aspects of the nation's 
food supply is essential for everyone, including the life of our 
planet. We need more, rather than less, education about the well 
researched ways in which the foods we eat impact human and other animal 
health, growth and IQ. We need immediate laws governing decisions made 
in the food industry with the sole goal of producing healthy, real, 
nutritional food free of altered genes and toxins. Laws that hold the 
industry accountable by exacting extreme penalties for ignoring 
evidence and producing toxic food. Laws that well-reward companies who 
do produce clean and healthy products in sustainable ways. It astounds 
me how we can let the ignorant and powerful remain so. Thank you for 
all that you do on our behalf!
                                 ______
                                 
                     Comment of Roxanne Royse-Flora
    Date Submitted: Tuesday, May 15, 2012, 7:51 p.m.
    City, State: Albany, OR
    Occupation: Student
    Comment: Hi,

    Please do not reduce or cut the Snap or any programs that help feed 
the poor, I am one of those people unfortunately who rely on this. I am 
a student at OSU and am working hard to make good money to help support 
me and my family and these programs make it so we do not have to go 
hungry.
    Thank you for your time!

Roxanne Royse-Flora.
                                 ______
                                 
                        Comment of Deborah Rubin
    Date Submitted: Sunday, May 20, 2012, 12:25 a.m.
    City, State: Tampa, FL
    Occupation: Parent
    Comment: Please support family farms, organic methods, integrated 
pest management over GMO' and increasing pesticide usage. Give us real, 
wholesome food, revamp school lunches, ban color dyes in food and 
carcinogenic ingredients. Support a diet of whole foods. Support local 
eating where possible. Don't attach a bunch of riders that have nothing 
to do with healthy food. Stop funding GMO's and their pesticide 
dependent and laden crops. We should not be eating Roundup--we all know 
it is an endocrine disruptor. Definitely ban the new Bayer corn. And 
stop using steroids and unnecessary antibiotics in farm animals. Look 
around--see the unhealthy Americans the most recent farm bills are 
producing--we are more like bulky farm animals than humans. Can't you 
figure out why--can't you see the connection. Please do the right 
thing.
                                 ______
                                 
                       Comment of Mary-Beth Rubin
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Joshua Tree, CA
    Occupation: Professional Cook, Nutritional Coach
    Comment: It is important to me that any farm bill support 
environmental sustainability of agriculture, natural resources, and 
rural communities. In short, I do not want to see my tax dollars 
subsidize corporate agriculture industry that produce contaminated 
foods in dead soil for big profits. I want family farmers, organic 
farmers, who are better stewards of the environment be better 
subsidized.
                                 ______
                                 
                        Comment of Melissa Rubin
    Date Submitted: Friday, May 18, 2012, 8:25 p.m.
    City, State: Santa Rosa, CA
    Occupation: Holistic Cook and Food Educator
    Comment: Organic! Sustainable! Hemp! Get rid of factory Animal 
Farms! No GMO! Label GMO! Get rid of unfair subsidies! Plant other 
vegetables in Iowa besides corn! Diversity in growing! Get rid of Mono 
crops, Go back to the land cows and other animals eating grass as they 
should be!
    Listen to Joel Salatin!
                                 ______
                                 
                         Comment of Gail Rubio
    Date Submitted: Friday, May 11, 2012, 11:51 a.m.
    City, State: Springville, CA
    Occupation: Retired
    Comment: I don't want to see the Federal government's fingerprints 
anywhere on agricultural grain, row crops, sugar cane, silage, dairy, 
cattle/swine/poultry raising, viticulture or orchards; I want the 
Federal government out of farming, dairy and all other means identified 
as ``rural/farming occupations''!
                                 ______
                                 
                         Comment of Ruby Rubley
    Date Submitted: Saturday, May 19, 2012, 3:34 p.m.
    City, State: Bellevue, MI
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Nuts, Specialty Crops, Other
    Size: Less than 50 acres
    Comment: I simply ask that as you are considering revisions to the 
farm bill that you remember the small farms, families, and conservation 
districts struggling not only to make ends meet, but to do so in 
ecologically conscious ways. Everything we do, or allow to be done to 
our land, affects not only our health, but that of our children and 
grandchildren. Please do not vote for financial reasons alone. Please 
do not cut our conservation programs and organic farming incentives. 
The land is what we and our neighbors survive on. Big agribusinesses 
are not the backbone of our nation; we, the people with calloused hands 
and muddy boots, are--and we are depending on you. Thank you.
                                 ______
                                 
                        Comment of Claudia Ruck
    Date Submitted: Saturday, May 19, 2012, 6:57 a.m.
    City, State: Canaan, CT
    Occupation: Teacher
    Comment: I'm concerned that Monsanto will own agriculture and the 
consumer will not have healthy food choices as a result. We need 
independent farmers growing food in our communities.
                                 ______
                                 
                        Comment of Kelly Rucker
    Date Submitted: Friday, May 18, 2012, 12:02 p.m.
    City, State: Lexington, SC
    Occupation: Mother
    Comment: Families have a right to a healthy food supply. Organic 
foods that are cost efficient and readily available to consumers is 
imperative. The health of our nations children is at risk.
                                 ______
                                 
                        Comment of Donna Rudiger
    Date Submitted: Friday, May 18, 2012, 4:18 p.m.
    City, State: Arlington, WA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: This legislation is important to the very survival of 
every food grower in the U.S. And, if the immigration laws continue to 
be pressed, there won't be harvesters available for getting the product 
to market. This is a crisis and it is time for someone in government to 
Think about all the cross-functional ramifications of NOT passing this 
bill? What are you gonna eat?
                                 ______
                                 
                        Comment of Luan Rudnick
    Date Submitted: Friday, May 18, 2012, 3:56 p.m.
    City, State: Anamoose, ND
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 500-999 acres
    Comment: We are not willing to eat GMO products or do we want to 
plant these products. Please get them off of the American food chain. 
Other Countries have recognized the dangers of these products and we 
want our government not the Chemical Industry to run our farm bill and 
get these foods off the market.
                                 ______
                                 
                       Comment of Susan Rudnicki
    Date Submitted: Friday, May 18, 2012, 3:02 p.m.
    City, State: Manhattan Beach, CA
    Occupation: Home Gardener, Botanist, Beekeeper, Dental Hygienist, 
Mother
    Comment: Commodity crops Must be stricken from the privileged 
status they have enjoyed with regard to price supports and 
subsidization! Vegetable and fruit and directly consumed crops have 
struggled with uneven competition from corporate Ag and Big Business, 
in a way the program from the 1930's Depression Era Was Never Meant To 
Work. Taxpayers are sick of giving money to big business Ag while our 
food supply is dominated by these players and the health and obesity 
problem of our country mushrooms with junk food made from cheapened 
commodity productions.
                                 ______
                                 
                          Comment of John Rueb
    Date Submitted: Thursday, May 10, 2012, 10:39 a.m.
    City, State: Amado, AZ
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Please support local hunger/food programs such as SNAP, 
TEFAP, and CSFP. Also support small, local producers such as myself. If 
you need to save money, cut subsidies to commodities.
                                 ______
                                 
                        Comment of Jonathan Ruf
    Date Submitted: Friday, May 18, 2012, 4:44 p.m.
    City, State: Decorah, IA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: With the upcoming farm bill, politicians in Washington 
(both democratic and republican) are about to again give away massive 
amounts of subsidies, mostly to go to big agribusinesses.
    This needs to stop. Large scale industrialized Agriculture has 
greatly contributed to the loss of soil, air and water pollution, as 
well as causing problems for the utter important honey bee.
    I want a new way forward for the planet's future. Please level the 
playing field so that small farmers can succeed. Local food systems are 
of utmost importance at a time when there are billions of humans 
scampering for the last oil reserves.
    Thank you for considering my comments.

Jonathan Ruf.
                                 ______
                                 
                        Comment of Victoria Ruff
    Date Submitted: Saturday, May 19, 2012, 7:51 a.m.
    City, State: Cambridge, MA
    Occupation: Office Manager
    Comment: I watched a horrible, horrible video this a.m. about how 
the animals are being treated at a farm that Tyson Foods get their 
animals from. Something needs to happen to those individuals who are 
torturing those animals as I type this. Please send someone to 
investigate--here is the link to the video--see for yourself the 
horrible conditions they are ``living'' in: http://youtube/bNY4Fjsdft4.
                                 ______
                                 
                          Comment of Lisa Rufo
    Date Submitted: Sunday, May 20, 2012, 10:48 a.m.
    City, State: Sarasota, FL
    Occupation: Artist
    Comment: We need to foster a better agricultural policy in this 
country. We need to rethink how we grow our food and how we raise our 
livestock. Local diverse farming is cheaper and more healthy. In our 
own community we have one small local market and it is packed with 
people who want local and healthy tasty food. People want the changes 
to a healthier way of life.
                                 ______
                                 
                         Comment of Chris Ruiz
    Date Submitted: Saturday, May 19, 2012, 4:24 p.m.
    City, State: Austin, TX
    Occupation: Bartender
    Comment: We need to encourage local urban farmers to continue to 
produce high quality products that can be used in local establishments 
and discourage subsidizing huge factory farms.
                                 ______
                                 
                         Comment of Colter Rule
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Falls Village, MA
    Occupation: Actor
    Comment: We were once an Honest Agrarian Democracy built on Truth 
and Hard Work. Don't let me say that those Values and Qualities are a 
Thing of The Past. Pass a sensible Bill that supports Independent 
Organic Farmers and Rids us of these Insane Subsidies that promote 
Abuse and Unfair market dominance by Large Corporations. Tell The Truth 
and Vote Fairly!
                                 ______
                                 
                      Comment of Rachel Lyn Rumson
    Date Submitted: Sunday, May 20, 2012, 11:28 p.m.
    City, State: South Portland, ME
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. Rep. Pingree's work 
on this is appreciated by a lot of Maine People for sustainable food 
system. I am a mother, and occupier, a trainer and a discerning farm 
product consumer. I'd like to share my support for programs that help 
the next generation of growers build strong farm businesses. It Is 
Essential That The Food Supply Chain Get Shorter. As it's estimated 
that 125,000 farmers will retire in the next 5 years, it's absolutely 
critical that farm bill programs help citizens get started in this 
challenging field. The only hope I can imagine for our youth facing 
staggering unemployment and economic depression is that they become 
engines in their own local economies. That means producing. I ask that 
the Committee endorse all of the provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Rachel Lyn Rumson.
                                 ______
                                 
                        Comment of Marye Runnels
    Date Submitted: Friday, May 18, 2012, 5:07 p.m.
    City, State: Petal, MS
    Occupation: Homemaker and Homeschooler
    Comment: I support Local Foods and Farmers and Jobs Act (H.R. 
3286).
    I support the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236).
    I support maintaining the EQIP Organic Initiative.
    We need organic research! Companies like Monsanto are not only 
putting farmers out of business, they are feeding poison to our 
children. We have to stop money making companies from destroying 
organic farmers. What good does it do to put food on the plates of 
Americans when that food is causing allergies and cancers. Show us that 
you hear the informed voters cry for change by not placing limitations 
on crop insurance subsidies. We need to plan for our futures and re-
attach the soil erosion and wetland conservation requirements to crop 
insurance programs. This committee has failed to do the full reform 
that is needed. This is your chance to show us that you care about the 
American and stop lining your pockets with big businesses money.
                                 ______
                                 
                       Comment of Shelly Running
    Date Submitted: Friday, May 18, 2012, 8:39 p.m.
    City, State: Okarche, OK
    Occupation: Retired
    Comment: Its wrong to cave in to the corporate agricultural 
business that thrive on what amounts to the destruction of our 
environment, our health, and the well-being of those farm families who 
prefer to grow food and feed the people in a more sustainable way. 
There are several countries who ban what You, our politicians are 
allowing. You are a politician in office because people voted for you 
with the understanding that you would do what is in the best interest 
of the people you represent. It's time to put the money, the lobbyists, 
the power and the greed aside and do what needs to be done for the 
people, and for the farmers who want to grow non-GMO foods. Stop 
funding big agriculture and instead fund the family farmer who wants to 
grow organic. Stop allowing toxic chemicals into our food chain. Stop 
the practices that have led to the need to petition You. You already 
know what the people want.
                                 ______
                                 
                 Joint Comment of Shannon & Kim Runyan
    Date Submitted: Wednesday, April 18, 2012, 11:28 a.m.
    City, State: McAlister NM
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 500-999 acres
    Comment: First, we want to say thank you for taking input on the 
new farm bill. Our comments are minute but we appreciate your 
consideration on the matter. We would like to see the food stamp 
program (SNAP) removed from the Agriculture Department and put into 
another agency. It needs to be in the Health & Human Services 
Department. The amount of money spent in the SNAP program makes average 
Joe American think farmers are over compensated. We are less than 2% of 
the population and we feed all of America and part of the world. We are 
Not rich and our job is Not easy. We are not asking for a hand out. 
This agency needs to be moved out of the Department of Ag.
    Second, it would be better for farmers to have more realistic 
insurance dates. A farmer must insure Milo by March 15. On March 15 we 
do not know if we are going to have enough rain to plant Milo (in June) 
or not. Another example of this type of absurdity is on January 30 you 
have to insure your hay grazer (not planted until June). Once again how 
do you know if it is going to rain in June? These are small common 
sense things that truly would help farmers.
            Thank you for your time,

Shannon & Kim Runyan.
                                 ______
                                 
                        Comment of John Ruprecht
    Date Submitted: Tuesday, May 15, 2012, 2:09 p.m.
    City, State: Avon, MN
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 50-150 acres
    Comment: I have been committed to sustainable ag long before the 
recent flair in popularity. Please ensure that sustainable ag is 
incorporated into the new version of the farm bill.
                                 ______
                                 
                       Comment of Mackenzie Rush
    Date Submitted: Friday, May 18, 2012, 11:42 a.m.
    City, State: Louisville, KY
    Occupation: Chef
    Comment: Please keep traditional foods available to patrons who 
wish to consume these products, i.e., raw milk and limit regulations on 
small scale farmers who are selling to a loyal local market. These 
people are keeping our agrarian culture alive and our food safe. They 
need to be protected and cherished, not regulated and screwed around 
with. They are good people doing the noblest work on Earth, not to 
mention back breaking. These farmers don't get paid big money for their 
products but they do the work because they love it and we love them for 
it, truly. The founders of our country would be appalled if they knew 
our government was trying to keep one neighbor from selling Food to 
another neighbor, think about it that way! Thank you for your time and 
consideration.
                                 ______
                                 
                         Comment of Jeremy Russ
    Date Submitted: Saturday, May 12, 2012, 2:15 p.m.
    City, State: Tempe, AZ
    Occupation: Handyman
    Comment: Please think in a larger picture. Our land is over used 
and we need to move back toward more sustainable agriculture which does 
not have such strong negative impacts to our environment. The dead 
zones in the ocean at the mouths of the rivers are caused by fertilizer 
runoff and manure. We need to solve this and other crisis. Animal 
agriculture is ruining our planet at its current scale. Most of our 
farmland is producing food for animals. This should not be subsidized. 
We need to move the subsidies away from animal agriculture and toward 
organic and more sustainable types of agriculture. As a tax payer, I 
have no interest in having my tax money support the deaths of animals 
so that they can be food for someone. I am certain that you and your 
fellow lawmakers can see the big picture and start to remove subsidies 
from programs which are detrimental to our environment. The subsidies 
need to be moved away from standard farms to certified organic farms. 
Please stop subsidizing animal agriculture altogether. If we had an 
even subsidy for all organic farms per pound of produce of any sort, 
the market would dictate what foods need to be produced in a more fair 
way. As it is now it is more costly for a person to eat a healthier 
diet. The subsidies which are set up for corn, cotton, wheat, rice, 
soybeans, and others are unfair and detrimental to our land. These 
subsidies are also helping cause unhealthy lifestyles. We need to be 
good stewards of our land and help others be good stewards of their 
land. Please consider my statements and help to ensure all people can 
live healthier in a healthy environment.
                                 ______
                                 
                          Comment of Mark Russ
    Date Submitted: Monday, May 14, 2012, 12:37 p.m.
    City, State: Orlando, FL
    Occupation: Nonprofit Organization
    Comment: As a leading representative of The TBS Goodwill Center in 
cooperation with Children's Agriculture and Science Adventures, we 
would like to make a request.
    We need to pass a farm bill that takes into consideration the 
current needs of the people in our communities. Many of the families 
and individuals that we assist are in a position of need because the 
monies they get on a weekly, biweekly or monthly basis just doesn't 
quite go far enough to carry them without the need for some help. We 
unfortunately do to the slow economy are seeing new recipients sign up 
every week for food assistance. With TEFAP being one of the integral 
parts of us getting out needed food, it certainly doesn't need to be 
cut or reduced. We hate having to turn people away, and that happens 
even now because of the growing demand. If we were too loose the TEFAP 
that we are currently receiving if would greatly reduce our ability to 
continue distributing needed nutritious food. Many of our recipients 
are seniors who are on fixed incomes and working mothers with children. 
Some of families receive food stamps (SNAP) but let us know that it 
just isn't enough to make it through the month.
    Do pass a farm bill that will help us to help strengthen our 
communities, which makes for a stronger, safer environment for all. We 
are doing our part to give something back, we need you in congress to 
do it as well.
                                 ______
                                 
                        Comment of James Russell
    Date Submitted: Friday, May 18, 2012, 2:19 p.m.
    City, State: Signal Mountain, TN
    Occupation: Retired College Professor
    Comment: I am a volunteer at a local farmers' market and buy almost 
all my food (meat, vegetables, etc.) there. It tastes better and is 
better for the environment. No long distance trucking. An article I saw 
in a reliable source stated the only 1.8% of American food came such 
local sources. That is disgraceful. We can do better.
                                 ______
                                 
                        Comment of Julia Russell
    Date Submitted: Friday, May 18, 2012, 4:30 p.m.
    City, State: Meridian, ID
    Occupation: Retired
    Comment: We are living in freedom country where we can voice and do 
what we want to support local farms, have our own vegetable and fruit 
gardening, can access to buy organic seeds and even save our own seeds 
for planting next year, etc. We must obtain our freedom. We do not live 
in socialism country! Thanks!
                                 ______
                                 
                       Comment of Trevor Russell
    Date Submitted: Friday, May 18, 2012, 11:02 a.m.
    City, State: Minneapolis, MN
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Please honor the stewardship compact and tie access to 
crop insurance to basic conservation stewardship. Farm bill 
conservation compliance is essential to protecting our land and water 
and should be a prerequisite for access to publicly subsidized 
insurance programs.
    Thank you.

Trevor.
                                 ______
                                 
                          Comment of Anne Ryan
    Date Submitted: Friday, May 11, 2012, 10:13 a.m.
    City, State: Susquehanna, PA
    Occupation: Retired Teacher (Rural)
    Comment: Please consider the serious necessity of sustainable, 
quality food for national security.
    When people and environment are threatened again and again by 
greedy and dangerous self interest, we all suffer. We need to protect 
and sustain our farmland and water and the families who work tirelessly 
to provide quality food. This is no place to scrimp.
                                 ______
                                 
                         Comment of Donna Ryan
    Date Submitted: Friday, May 18, 2012, 2:00 p.m.
    City, State: Cotati, CA
    Occupation: Retired
    Comment: I live in one of the best farming areas in the world We 
have the cleanest freshest food . . . keep our organic and local family 
farmers safe from Agribusiness pollutants, Monsanto Seeds and 
Pesticides. Recognize the health benefits of good soil, untouched seed 
stock, grass fed beef, pure water resources for the salmon industry and 
feed that comes from unpolluted sources.
                                 ______
                                 
                          Comment of Kate Ryan
    Date Submitted: Friday, May 18, 2012, 12:16 p.m.
    City, State: Delhi, NY
    Occupation: Secretary for the Board of a Nonprofit Farm Catskills
    Comment: I also think regulations regarding how money given to 
schools can be used to purchase certain products such as meat and eggs 
should be changed. Schools should be allowed more flexibility to use 
Federal money to purchase local meat and eggs.
                                 ______
                                 
                         Comment of Peter Ryan
    Date Submitted: Friday, May 18, 2012, 6:13 p.m.
    City, State: North Bend, OR
    Occupation: Retired
    Comment: I'd like to think that the next farm bill will reflect the 
interests of producers and consumers who are aware of and care about 
health of the land and of people.
                                 ______
                                 
                    Comment of Francoise Ryckebusch
    Date Submitted: Friday, May 18, 2012, 4:30 p.m.
    City, State: Highland, MD
    Occupation: Retired
    Comment: No bill should be more carefully conceived that a farm 
bill, as everybody should be conscious of the importance of safe 
policies on the products of an industry which feeds millions of people.
                                 ______
                                 
                     Comment of Kimberly Saarikoski
    Date Submitted: Friday, May 18, 2012, 11:40 p.m.
    City, State: Huntersville, NC
    Occupation: Technical Writer
    Comment: I support and want to see my political representatives 
also support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> Support small local farming--legalize the production, sale, 
        purchase, distribution, and consumption of raw milk and raw 
        milk products.

  <bullet> Support the individual's right (Here in the state of North 
        Carolina and the rest of the country) to decide for themselves 
        and their children, whether or not to produce, purchase, sell, 
        and/or consume Raw Milk and raw milk products, and whole, 
        locally grown foods.

  <bullet> Support the existence of local organic farming practices as 
        prescribed by local organic farmers.

  <bullet> Support the development and creation of intelligent and 
        common-sense laws & regulations, which are designed to work 
        with and support the existence of farms of various sizes.

  <bullet> the abolishment of regulatory practices that create one-
        size-fits-all laws and regulations, which apply to various 
        sized farms.

    I support the idea that I would like to see politicians remind 
themselves and one another that they are elected to Serve the public, 
and Not to Dictate laws to the public. Politicians and government 
workers are public servants paid by taxpayer money.
                                 ______
                                 
                      Comment of Theresa Sabatini
    Date Submitted: Saturday, May 19, 2012, 8:02 a.m.
    City, State: Cheswick, PA
    Occupation: Professor
    Comment: The farm bill as it stands supports mega agribusiness and 
not small and medium farmers. And by supporting commodity crops and not 
freshly consumable vegetables and fruits, it damages the health of 
Americans by making processed foods cheaper than fresh. Use some common 
sense. Get your hands out of the corporate tills and back to work for 
the people!
                                 ______
                                 
                         Comment of Paul Sabol
    Date Submitted: Friday, May 18, 2012, 12:36 p.m.
    City, State: New Hampton, NH
    Occupation: Retired Telecommunications Technician
    Comment:

    1. Shut down Monsanto--close all GMO controlling activities and 
        producing facilities.

    2. Shut down round-up/collect and destroy all stockpiles.

    3. Fine Monsanto for all damages caused to small farmers for 
        destroying seed stocks and family farms.

    4. Require FDA/USDA/CDC/other Gov't entities divest themselves of 
        all employees with Monsanto/Big Pharma based work experience.

    5. Restrict all State Agencies that control farm production in the 
        same manner.

    6. Tell gov't to take their head out of where the sun don't shine 
        and learn common sense!
                                 ______
                                 
                       Comment of Laurie Sackler
    Date Submitted: Friday, May 18, 2012, 11:59 a.m.
    City, State: Brooklyn, NY
    Occupation: Homemaker
    Comment: Nothing could be more important to the health of our 
families than a consistent source of quality food, raised by farmers 
who use non-GMO seeds and practice sustainable and preferably organic 
farming methods. The large agribusinesses and chemical companies such 
as Monsanto, which have been supported by government programs, have 
tried their best to drive out small family farms where sustainable 
farming is possible. They have repeatedly and successfully been able to 
obscure the fact that a large profit is their only goal and that 
healthy and humane practices are neither necessary or profitable. I 
support the labeling of all GMO foods because I heartily wish to avoid 
consuming them. Please think carefully about what the majority of the 
country is deeply concerned about--the health of our families and a 
source of uncontaminated food which has been raised humanely and 
sustainably.
                                 ______
                                 
                         Comment of Jim Sadler
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Granby, MA
    Occupation: Designer
    Comment: 20th century agricultural practices focused on quantity 
over quality using petroleum and chemistry in an attempt to cheat 
nature. We've succeeded in producing a lot of food and making a few 
people very wealthy, but we are destroying our natural resources and 
the health of our people as a result. It's time to change direction. 
Organic growers are proving that there is a better way feeding our 
nation. A farm bill should slam the door on our arrogant, greedy 
agribusiness instead favoring anyone from home gardeners to small and 
large farmers who are willing to commit to healthy, chemical-free soil 
and food products rich in nutrition.
                                 ______
                                 
                       Comment of Jesse Sadowsky
    Date Submitted: Friday, May 18, 2012, 6:42 p.m.
    City, State: Dickinson, ND
    Occupation: Graduate Student/Research Assistant
    Comment: Creating an environment to foster growth of organic 
farming is crucial to ensure food security and economic sustainability 
of agriculture. Continued investment in research will aid organic 
farmers to overcome production problems, improve production efficiency, 
and adapt lessons learned from successful organic and low-input farming 
operations for use by a broader cohort of producers.
    These provisions to the farm bill will help achieve the above-
listed objectives:

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Program.

    Thank you for seriously considering these suggestions.
            Sincerely,

Jesse Sadowsky.
                                 ______
                                 
                        Comment of Thomas Sager
    Date Submitted: Saturday, May 19, 2012, 12:35 a.m.
    City, State: Rolla, MO
    Occupation: Retired
    Comment: Please:

    1. Require Conservation Compliance for Taxpayer Subsidized Crop 
        Insurance Programs in the 2012 Farm Bill.

    2. Set reasonable limits on taxpayer-funded crop insurance 
        subsidies to help keep costs from continuing their upward 
        spiral.

    3. Help grow jobs by retaining programs like the Value Added 
        Producer Grants Program.

    4. Help grow local farm economies and support healthy food in 
        schools by providing flexibility for states to use existing 
        food procurement programs to purchase fresh, healthy food from 
        local farmers and ranchers.

    5. Retain effective conservation programs in the farm bill that 
        deliver clean water and wildlife benefits.

    6. Grow farmers through mandatory funding for the Beginning Farmer 
        and Rancher Development Program.
                                 ______
                                 
                          Comment of Don Saito
    Date Submitted: Friday, May 18, 2012, 1:58 p.m.
    City, State: Oakland, CA
    Occupation: Unemployed
    Comment: Organic farming is essential to the future health of 
everyone, everywhere. Please put greed in check, and do what's best for 
people, and the environment.
                                 ______
                                 
                        Comment of Steve Sakala
    Date Submitted: Saturday, May 19, 2012, 1:09 a.m.
    City, State: Kona, HI
    Producer/Non-producer: Producer
    Type: Dairy
    Size: Less than 50 acres
    Comment: As a small scale agriculture producer I feel it urgent to 
convey the need for a healthy and just farm bill. I, as well as most 
small scale producers I know, are just making it by barely covering our 
basic costs and needs. We can not compete against the subsides of 
corporate agriculture nor compare to the political influence. As an 
independent family farmer I suggest the following;

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    These are but a small step to maintaining our nations family 
farming roots.
                                 ______
                                 
                        Comment of Mark Salamon
    Date Submitted: Wednesday, May 09, 2012, 6:28 p.m.
    City, State: San Mateo, CA
    Occupation: Library Technician
    Comment: Stop subsidizing unhealthy and injurious corporate 
agribusiness producing wheat, corn, and factory farmed animals that are 
all sustained with pesticides, genetic modification, growth hormones, 
and antibiotics. Switch government funding support to small family 
owned farms, organic agriculture, and the production of fruits and 
vegetables.
                                 ______
                                 
                         Comment of Josh Salans
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: San Jose, CA
    Comment: Dear Zoe,

    You need to know GMO Corn effects my health directly upon 
consumption. DO not allow the shills of Monsanto money tell you that 
GMO's are safe. My butt takes on hemorrhoids the size of golf balls for 
up to 24 hours after consuming a product with non-organic American 
Corn. This is because 90% of American non organic corn is grown with 
Monsanto's GMO seed which contains the Cauliflower Mosaic Virus which 
is implicated in Irritable Bowel Syndrome--just in case you did not 
know these facts. The Virus manufactures or turns on the pesticide gene 
in every cell of the corn plant, and every cell in each corn seed of 
the ear of corn. This virus and pesticide remains viable through the 
life cycle of the corn as it makes it's way into the thousands of corn 
based products that fill our grocery shelves, you know ALL soda pop, 
all candy from American suppliers, all processed food of any kind all 
contain some form of corn starch, corn sugar, corn syrup, baking 
powder! All cause my symptoms and therefore \2/3\ of American food I 
cannot eat--it also effects my restaurant choices and food there. I am 
being threatened in my homeland with poisoning by Monsanto and those 
who support the growing of poisonous American corn. Please do something 
to stop this. An Organic farm Bill, that outlaws Genetically Modified 
Organisms in our soil and our food products. Its poison Zoe--that means 
the perpetrators of this food stuff should be arrested and convicted of 
poisoning the American people. My bloody bowels not withstanding there 
are a whole slew of other GMO products that contain man made virus and 
such or are impervious to Roundup. And FYI all of these are being 
increased in strength as the bugs get used to the poison. And don't get 
me started on the deterioration of American soils. We are so bloody 
destructive in our farm policy today. Tear it up and rebuild without 
the poison makers having a word edgewise.
    Thank you Zoe for all you can do!
                                 ______
                                 
                       Comment of RayAnn Salazat
    Date Submitted: Friday, May 18, 2012, 2:06 p.m.
    City, State: Houston, TX
    Occupation: IT Specialist
    Comment: I am a mother of 3 children and I have had to learn that 
the foods on the shelf are not good food, the hard way. It is 
discouraging that I have to start at ground zero to teach my children, 
what is Good For Your Body (healthy) food and what is not. I have a 
child with Autism, that is so limited in his food selection due to food 
sensitivities. For our future, please provide the Best--Good For Our 
Body Foods. Thanks.
                                 ______
                                 
                        Comment of Teresa Saleem
    Date Submitted: Thursday, May 17, 2012, 5:57 p.m.
    City, State: Austin, TX
    Occupation: Computer Technician
    Comment: Food is a basic necessity for all people. Some people are 
not able to provide for themselves (children and the elderly). 
Therefore, there is a need for programs like SNAP, TEFAP, and CSFP. The 
food programs listed help protect many children and elderly American 
from starvation. Please ensure food programs such as SNAP, TEFAP, and 
CSFP receive substantial funding.
                                 ______
                                 
                        Comment of Mary Salomon
    Date Submitted: Friday, May 18, 2012, 8:18 p.m.
    City, State: Ballston Spa, NY
    Occupation: Speech Language Pathologist
    Comment: Dear Members of the House Committee on Agriculture,

    It is time to even the playing field. Support small organic farms. 
The people of the United States of America have the right to non-GMO, 
chemical free, locally grown food. Supporting our local organic farmers 
is good for our communities, our personal health, and the health of our 
planet. Pesticides and GMOs are scientifically linked to the death of 
our important bees, and to the development of superweeds and super 
bugs.
                                 ______
                                 
                         Comment of Penny Salus
    Date Submitted: Saturday, May 19, 2012, 11:46 p.m.
    City, State: Eugene, OR
    Occupation: LMT, Hearing Impaired Interpreter, Mom
    Comment: I buy only organic. When and if we eat, we pay very close 
attention to how the animal was treated, what kind of life it lived and 
what kind of food it ate. I feel this is personal politics at its best. 
Where we choose to spend our money and the kind of agriculture we 
choose to support with that money is the best way to proclaim what is 
important to us. Food is so central to our being and to our long term 
health as people and as a race. We are so short sighted in so many 
ways. Food is a way that gives us sustenance in the present and affects 
our well being for our whole lives.
                                 ______
                                 
                      Comment of Dr. Joyce Salvage
    Date Submitted: Friday, May 18, 2012, 4:04 p.m.
    City, State: St. Petersburg, FL
    Occupation: Retired Teacher & Adjunct Professor
    Comment: The way animal food products is produced in this country 
is disgusting and immoral. Beyond that, it is not natural to add all 
kinds of hormones, antibiotics to unsanitary conditions.
    Re: plant products, it's almost impossible to avoid genetically 
modified foods, like high fructose corn syrup and pesticides, since 
they seem to be in almost everything. Not everyone can afford to buy 
their food at health food stores or Whole foods type stores. This farm 
bill will help to rectify the situation and ensure healthier foods for 
Americans to eat. We need to prevent disease, which will end up 
reducing costs to taxpayers, as well. This is supposed to be a 
``developed'' country! Use science and medicine to inform agriculture!

Dr. Joyce Salvage,
St. Petersburg, FL.
                                 ______
                                 
                        Comment of Deborah Salz
    Date Submitted: Saturday, May 19, 2012, 1:13 p.m.
    City, State: Boynton Beach, FL
    Occupation: Licensed Physical Therapist
    Comment: I am part of a growing number of people who feel that 
protecting our health and having the freedom to make sensible choices 
for our health is our most important right. We cannot do that if our 
choices (i.e., organic food choices) are restricted or limited in 
anyway. Please protect this Most important freedom and do not cave to 
the special interests ($$$$) of agribusiness i.e., Monsanto. We are 
counting on You to protect our families (and yours) with regards to the 
decisions you make today, impacting many generations to come!
    The one area of healthcare reform that appears not to be addressed 
enough is personal responsibility and healthy lifestyle choices. You 
can help promote that by supporting Americans' rights to watch what 
they put into their bodies. We need You in this battle of health 
interests of individuals versus agribusiness/chemical behemoths. Please 
support us and we will not forget you at the polls! Thank you for your 
assistance.
                                 ______
                                 
                        Comment of Daniel Sambor
    Date Submitted: Wednesday, May 02, 2012, 7:47 p.m.
    City, State: Providence, RI
    Occupation: Student
    Comment: I would like the farm bill to support farmers' markets, 
community gardens, urban farms, and organic agriculture. A healthy, 
sustainable food system should include these because they produce food 
without harming our environment. The farm bill should also have less 
subsidies for large corn farms. These large corn farms severely 
diminish the soil quality and thus must use synthetic fertilizers and 
pesticides that run off fields and contaminate our waterways.
                                 ______
                                 
                      Comment of Christine Sample
    Date Submitted: Thursday, May 17, 2012, 6:46 p.m.
    City, State: Muscatine, IA
    Occupation: Retired
    Comment: America needs a farm bill that makes healthy food widely 
available to all Americans--including schoolchildren! We must provide 
flexibility for states to use existing food procurement programs to 
purchase fresh, healthy food from local farmers and ranchers. We need 
to help the small organic farmers who are trying to provide healthy 
food to us, so we can lead a healthy life.
                                 ______
                                 
                      Comment of Kristina Sampson
    Date Submitted: Friday, May 18, 2012, 1:27 p.m.
    City, State: Vail, CO
    Occupation: Consultant
    Comment: Dear House Agriculture Committee,

    As a breast cancer survivor, what I put into my body is of the 
utmost importance to me. Please do not let companies like Monsanto 
determine what we will eat for the rest of eternity.
    A recent local newspaper article discussed the increase in cancer 
rates among dogs, and one of the reasons stated is their exposure to 
chemicals in the environment, including fertilizer. Do you folks not 
realize that the smallest of us are the proverbial ``canary in the coal 
mine''. Don't just dismiss this because it is dogs and not humans. It 
is only a matter of time before it catches up with every single one of 
us. There is a reason the breast cancer rate has risen from 1 in 30 
women in the 1970s to 1 in 8 now, and environmental toxins play a large 
part in that. As an MD on the CBS Sunday Morning show stated last week, 
the breast is like a sponge that soaks up everything in its 
environment, including toxins. Wake Up! You Must protect organic 
farmers and not let Monsanto and its ilk do everything in their power 
to destroy the organic farmer. And please do Not let them release 
genetically-modified salmon into the wild.

Kristina Sampson.
                                 ______
                                 
                        Comment of Rhys Sampson
    Date Submitted: Saturday, May 19, 2012, 6:58 p.m.
    City, State: Deerfield, OH
    Occupation: Forrester
    Comment: The industrialization of our food supply has resulted in 
unhealthy practices, at the farm and at the dinner table. Return the 
power of food production to families and stop the industrialization of 
our farms.
                                 ______
                                 
                       Comment of Diane Samuelson
    Date Submitted: Friday, May 18, 2012, 5:17 p.m.
    City, State: Hilton Head Island, SC
    Occupation: Shaklee Sales Leader
    Comment: I fear for the health of our food supply with the nonsense 
that is going. What are people thinking? We are one of the unhealthiest 
nations in the world and it is about time we stood up for the people 
and companies that are doing the right thing producing organic products 
and procedures that are safe and beneficial to all of us. Monsanto is 
the worst of the lot trying to not allow labeling of GMO's. This is so 
irresponsible and abhorrent.
                                 ______
                                 
                      Comment of Jennifer Sanborn
    Date Submitted: Friday, May 18, 2012, 10:26 a.m.
    City, State: Winona, MN
    Occupation: Software Engineer
    Comment: Please consider incentives for farmers to grow 
Organically, and to move farmers away from GMO and Monsanto-driven 
crops. A safer food system is Essential for us as a country and as a 
member of the world. Please increase the number of inspectors of large 
operations.
                                 ______
                                 
                        Comment of Marta Sanchez
    Date Submitted: Sunday, May 20, 2012, 2:35 p.m.
    City, State: Seattle, WA
    Occupation: Secretary
    Comment: Please recognize that seeds spread via wind, water, etc., 
and GMOs are therefore ruining our organic crops. There is a large 
percentage of our country trying to live an organic lifestyle to make 
sure the nutrients for our families--both biological and logical are 
not contaminated. Let alone the mindset of a good life for animals 
prior to their sacrifice reaching our plates. Please ensure labeling 
lets me--the public, your constituents know when food is actually 
organic or kosher or altered with hormones. Thank you.
                                 ______
                                 
                       Comment of Judith Sandeen
    Date Submitted: Tuesday, May 08, 2012, 2:39 p.m.
    City, State: Hastings, NE
    Occupation: Retired Registered Nurse
    Comment: Please protect funding for critical Federal nutrition 
programs, including the Supplemental Nutrition Assistance Program 
(SNAP) as you work to re-authorize the farm bill. I keep hearing that 
churches and other charitable organizations should feed the poor. While 
many of those organizations do just that, they do not have sufficient 
means to care for all the hungry in our country. In addition, those 
efforts are, by necessity, piecemeal. We are not, or at least, have not 
been, a country that neglects its poor and hungry. Please do not go 
back to the time of poor farms.
                                 ______
                                 
                        Comment of Morris Sandel
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Austin, TX
    Occupation: Retired Graphic Design/Computer Tech
    Comment: Ban genetically modified produce. Ban toxic fertilizers, 
pesticides and all other additives from our food. Support small farms, 
those who produce organically grown products and limit power of ``big 
agriculture'' money-driven manipulations.

Mo Sandel.
                                 ______
                                 
                      Comment of Jennifer Sanders
    Date Submitted: Friday, May 18, 2012, 7:06 p.m.
    City, State: Jacksonville, FL
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Difficult as it is to believe, hardly a century ago we 
were able to feed ourselves, as a country, and even help others. 
Backyard gardens and nearby farms became unfashionable to city 
planners. Now, almost full circle, we eat frankenfoods, then pop pills 
at alarming rates attempting to manage effects of our malnutrition: 
diabetes, heart failure & obesity. The correction is elementary; return 
to what worked. Synthetic inputs (GMOs) don't work in animals or humans 
without grave (literally), consequences. Take the moment to consider 
the unhealthy future for your own family, if we continue on what is an 
unsustainable and un-natural system of agriculture. Real food is good 
food, make the farm bill support real food and real farms. Thank you.

Jennifer Sanders,
[Redacted]
                                 ______
                                 
                        Comment of Julie Sanders
    Date Submitted: Friday, May 18, 2012, 12:45 p.m.
    City, State: Fishers, IN
    Occupation: Stay-at-Home Mom
    Comment: As the main supplier of food to my family--I shop, store, 
and cook for those I love--I want to let you know how important H.R. 
3286 is to the health and well-being of my family.
    Please know that I support the full endorsement of all provisions 
of the Local Foods, Farms and Jobs Act (H.R. 3286).
    I support the full funding of conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    I support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    And I support maintaining the EQIP Organic Initiative.
    Please do not put the interests if agribusiness and insurance 
companies ahead of the health and well-being of our nations families.
    Thank you for considering all the perspectives and making a 
decision based on the interests of health, small farmers, and the 
future of agriculture in our country.
                                 ______
                                 
                       Comment of Kendall Sanders
    Date Submitted: Saturday, May 19, 2012, 2:55 a.m.
    City, State: Everett, WA
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Greenhouse/nursery, Nuts, Poultry/poultry 
products, Vegetables
    Size: Less than 50 acres
    Comment: The love of money is the root of many evils. We need to 
consider the consequences of our actions and not be motivated purely by 
the desire to profit. We must take care of our resources especially our 
food and water supplies. Organic and natural farming is one way of 
caring for these resources that we all need. Please consider what is at 
stake here. We need to create a healthy food bill to replace the farm 
bill. Large corporations are monopolizing this field and we need to 
realize this is not healthy for us or our posterity. Please research 
how we can do this better before it is too late!
                                 ______
                                 
                       Comment of Wayne Sangster
    Date Submitted: Wednesday, March 14, 2012, 9:22 a.m.
    City, State: Pineview, GA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 301-500 acres
    Comment: As a producer and Agricultural Banker I feel the current 
farm bill offers a sufficient safety net. I would like to see the FSA 
Loans Programs be sufficiently funded. Currently this is a huge problem 
I have notice as producers are eligible for FSA Loan Programs however 
there is too little funding available to cover the dire need of these 
producers.
                                 ______
                                 
                       Comment of Dagny SanMiguel
    Date Submitted: Friday, May 18, 2012, 5:59 p.m.
    City, State: Sacramento, CA
    Occupation: Medical Transcriptionist
    Comment: Wholesome, unadulterated food is a fundamental need for 
good health. It is the proper function of government to ensure its 
adequacy and availability to all citizens, and supporting small farmers 
rather than corporate monsters is basic to this mandate.
                                 ______
                                 
                        Comment of Sarah Santora
    Date Submitted: Thursday, May 17, 2012, 12:50 p.m.
    City, State: Salem, CT
    Occupation: Food Bank Employee
    Comment: Dear Committee:

    A strong nutrition title in the farm bill is the only thing keeping 
Americans from starving on the streets. When the economy is down, at 
least there is still food--that is why cutting it is short sighted and 
dangerous. Block granting it will cause millions of voters to lose the 
ability to eat. That will cause an increase in theft and violent crime. 
Those on the committee who care about small government generally also 
care about avoiding a police state, but if you take away desperate 
people's access to food that is just what you get--increased spending 
in law enforcement and incarceration. It is a smart investment to keep 
SNAP (food stamps) and other assistance like TEFAP (temp emergency 
food) available in a time of need. It's even Biblical, for those who 
say it's not. ``Whatsoever you do to the least of my brothers, that you 
do unto Me''.

Sarah Santora,
Salem, CT.
                                 ______
                                 
                        Comment of Janice Santos
    Date Submitted: Friday, May 18, 2012, 7:33 p.m.
    City, State: Caribou, ME
    Occupation: Secretary--Department of Defense
    Comment: The past practices of Agribusiness have decimated our 
bees, our land, the food has no nutritional value and I am certain we 
will find out soon that it has also caused the fungus that is killing 
our bats.
    We need natural, accountable farming practices if we want to 
survive.
                                 ______
                                 
                         Comment of Omar Santos
    Date Submitted: Tuesday, March 20, 2012, 12:20 p.m.
    City, State: Elgin, IL
    Occupation: Engineering
    Comment: Local and regional food systems help create jobs and spur 
economic growth in rural and urban communities. Please support 
investment in this growing sector by including the Local Farms, Food, 
and Jobs Act in the next farm bill.
    The future of family farming and ranching in America depends upon 
ensuring that would-be new farmers have access to land, capital, and 
markets. Please support beginning farmers and ranchers by including 
Beginning Farmer and Rancher Opportunity Act in the next farm bill.
    Farmers depend on quality, cutting-edge research to stay 
successful--please make sure the next farm bill invests in this crucial 
work.
    Working lands conservation programs help farmers maintain 
productivity while protecting our air, water, and soil, protect these 
programs from unfair funding cuts!
                                 ______
                                 
                       Comment of Jimena Saravia
    Date Submitted: Friday, April 06, 2012, 2:46 p.m.
    City, State: San Francisco, CA
    Occupation: Digital Artist
    Comment: Title I--Stop with the Genetically Engineered commodity 
crops. They are not safe for the public to be eating! We've lost 30% of 
the micro-nutrients in our soil due to pesticide use causing severe 
malnutrition.
    Title IV--Only organic fruits and veggies and whole grains for 
SNAP, since animal proteins are so detrimental to the lining of your 
arteries, we will eventually have to pay for their open heart surgery 
or cancer treatments (watch Forks Over Knives)
    Title VII--needs major funding. Trees are what keep us alive, they 
clean our air thus reducing the amount of asthmatics and provide 
quality of life. Humans are animals after all, we need nature!
    You need a new title to help fund a more local way of sourcing 
food. If you have grass you should be growing your own food and trying 
to be more sustainable.
                                 ______
                                 
                     Comment of Stephen Sarbiewski
    Date Submitted: Friday, May 11, 2012, 8:57 p.m.
    City, State: Redmond, WA
    Occupation: Retired
    Comment: No more sugar subsidies for growers. We are disgusted that 
private growers receiving Federal subsidies have locked out union 
workers refusing to pay them a fair wage. Please stop giving private 
growers Federal funds for growing sugar.
                                 ______
                                 
                       Comment of Marlene Sarnat
    Date Submitted: Friday, May 18, 2012, 1:54 p.m.
    City, State: Rio Vista, CA
    Occupation: Retired
    Comment: The use of GMO crops leads to higher levels of pesticides 
and weeds and insect mutations which keep the cycle going higher and 
higher. This must be stopped to allow natural and organic farming to 
maintain the balance and provide safe, sustainable, and healthy food 
production.
                                 ______
                                 
                    Comment of Marijeanne Sarraille
    Date Submitted: Sunday, April 29, 2012, 5:25 p.m.
    City, State: Pittsburg, CA
    Occupation: Disabled
    Comment: I support the strengthening and protecting programs like 
TEFAP and SNAP in the farm bill. Stop helping the big corporate farmers 
and assist the small family farms.
                                 ______
                                 
                        Comment of Tara Sarrazin
    Date Submitted: Friday, May 18, 2012, 11:56 a.m.
    City, State: Eagan, MN
    Occupation: Accounting
    Comment: The farm bill is important to so many people across this 
country, including a growing number that are very concerned about how 
their food is grown and what is used to grow them. While companies, 
like Monsanto, seem to have many in government in their back pockets, 
it is time for politicians to understand that people want to eat 
chemical-free grown food and know that their foods are free of GMO. As 
a mother, wife, and person concerned about what goes into my body and 
that of my family I want to show my full support for all provisions of 
the Local Foods, Farms and Jobs Act (H.R. 3286). I support the full 
funding of conservation programs like the Conservation Stewardship 
Program, and making sure that enrollment in any new insurance subsidies 
are tied directly to compliance with conservation programs.
    The implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236). I also support maintaining the 
EQIP Organic Initiative. I buy organic foods for a reason. I don't want 
GMO foods in my house and I don't want to support farmers or businesses 
that grow or sell them.
    Please look around at the growing organic industry and the outcry 
of people tired of the government listening and making decisions in 
favor of big businesses. This bill can help support quality programs 
and initiatives if the House Committee takes a stand to back them.
                                 ______
                                 
                       Comment of Michelle Sartor
    Date Submitted: Friday, May 18, 2012, 9:30 a.m.
    City, State: Maitland, FL
    Occupation: Wellness Coach
    Comment: As a wellness coach, I know how important local, 
preferably organic, produce and meat are to good health. I encourage 
you to support measures to stimulate small, family farms. At the same 
time discourage large-scale industrial farming that typically requires 
pesticides, herbicides, fungicides, hormones and antibiotics which 
limit variety and deplete our soil.
    Fully fund programs that support beginning and socially 
disadvantaged farmers and ranchers, organic farming, regional farm and 
food economies, and rural development. We need more farmers and 
ranchers, more sustainable food production, and more economic 
opportunity in our food system.
    Limit funds to Concentrated Animal Feeding Operations (CAFOs) for 
animal waste management infrastructure by eliminating the Environmental 
Quality Incentives Program (EQIP) Livestock Set-aside and protect the 
Conservation Stewardship Program (CSP) from disproportionate cuts, and 
improve it by ranking applications solely on their conservation 
benefits.
                                 ______
                                 
                       Comment of San Malo Sasha
    Date Submitted: Friday, May 18, 2012, 6:55 p.m.
    City, State: Pahoa, HI
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: We need to support small farmers. We need to support 
organic farmers. There is too much subsidy for huge corporation farms 
that already control the market. It's the small farmers who need help.
                                 ______
                                 
                      Comment of Brian Satterwhite
    Date Submitted: Friday, May 18, 2012, 1:50 p.m.
    City, State: Portland, OR
    Occupation: Manager
    Comment: End subsidies to large corporate farms. They don't need 
them. Foster the creation and viability of small family farms. End all 
subsidies for corn and soybeans. These can stand on their own in the 
market. Cheap corn is a key contributor to our America weight problem. 
The farm bill is driving the cost of Medicare/Medicaid up.
                                 ______
                                 
                         Comment of Brian Sauer
    Date Submitted: Friday, May 18, 2012, 12:41 p.m.
    City, State: Kansas City, MO
    Occupation: Scientist
    Comment: As one who grew up on a small dairy farm and have spent my 
entire adult life as a molecular biochemist I strongly urge you to 
support:

    (1) full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (4) Maintaining the EQIP Organic Initiative.

    Corporate interests may well try to convince you otherwise. Of 
course they will not be picking up the tab for the dead zone in the 
Gulf of Mexico, the rise of antibiotic resistance in bacterial 
pathogens, or for the rise in obesity/diabetes in this country--all of 
which can in part be reasonably attributed to unsound agricultural 
policies.
                                 ______
                                 
                       Comment of Eric Sauerhagen
    Date Submitted: Wednesday, April 18, 2012, 9:24 p.m.
    City, State: Bend, OR
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: As a young rancher I am interested in congress investing 
in the future of America's farmers. We need support in the Beginning 
Farmer and Rancher Development Program.
                                 ______
                                 
                        Comment of Lois Saunders
    Date Submitted: Friday, May 18, 2012, 12:49 p.m.
    City, State: Nixa, MO
    Occupation: Retired
    Comment: I buy from local farmers 95 percent of the time. They 
produce food without chemicals, antibiotics or hormones. The food I eat 
tastes good and is healthy. Food from CAFO's is terrible tasting as is 
most processed food. I also shop in health food markets all year long.
                                 ______
                                 
                     Comment of Christine Savarese
    Date Submitted: Tuesday, May 15, 2012, 11:35 a.m.
    City, State: Ft. Pierce, FL
    Occupation: Holistic Health and Nutrition Counselor
    Comment: We elect our Congressional Reps to represent the People, 
not the Corporations who feed us pesticide infested, factory farmed, 
unhealthy foods. I want My money to support Nutrition, not be cut by 
your outrageous Austerity measures. You say America is broke, well you 
are lying, you just want to enrich your donors. Congress must represent 
the people, not the crooks who purchase your loyalty.
                                 ______
                                 
                      Comment of Rosemarie Sawdon
    Date Submitted: Friday, May 18, 2012, 12:43 p.m.
    City, State: Blacksburg, VA
    Occupation: Retired
    Comment: I realize that sustainable farming practices do not add to 
profits for the big agricultural conglomerates as our soil, water and 
air become more polluted, and that they support your political 
campaign. However, sustainable farming is necessary for a healthy, 
livable plant. Do you have children, grandchildren?
                                 ______
                                 
                       Comment of Cynthia Sawtell
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: San Anselmo, CA
    Occupation: Retired
    Comment: It is time to put the interests of a health-seeking public 
ahead of the special interests of Big Ag. Stop subsidizing and favoring 
the interests of large, global agribusinesses and start developing 
policies with the best interests of public health in mind. Small, local 
farmers provide Much healthier food options than these huge 
corporations do . . . and they are not causing the diabetes epidemic!
                                 ______
                                 
                        Comment of Caryl Sawyer
    Date Submitted: Saturday, May 19, 2012, 7:02 p.m.
    City, State: Sandston, VA
    Occupation: College Instructor
    Comment: Please note: The public is fed up with Big Agriculture 
running roughshod over everyone, especially the organic farmers. And 
just what is a giant chemical company doing in agriculture? Maybe 
financing campaigns?
                                 ______
                                 
                        Comment of Martha Saxton
    Date Submitted: Friday, May 18, 2012, 12:05 p.m.
    City, State: New York, NY
    Occupation: Professor
    Comment: We should stop subsidizing huge agribusinesses to produce 
enormous quantities of corn and use huge amounts of lethal pesticides 
which end up in our food and water. We need support for sustainable 
practices that are good for our soil, water and air.
                                 ______
                                 
                         Comment of Joni Saylor
    Date Submitted: Sunday, May 20, 2012, 12:24 p.m.
    City, State: Phoenix, AZ
    Occupation: Industrial Designer
    Comment: Please maintain critical nutrition programs in this time 
of unprecedented need. We must not solve our budget problems on the 
backs of those experiencing food insecurity, including our most 
vulnerable--our children, the elderly, and the disabled.
                                 ______
                                 
                       Comment of Lindsey Scalera
    Date Submitted: Saturday, May 19, 2012, 10:29 a.m.
    City, State: Ypsilanti, MI
    Occupation: Community-Based Educator/Organizer
    Comment: Dear Members of the House Committee on Agriculture,

    Thank you so much for this opportunity to share with you my 
concerns and ideas for the next farm bill. Investments in sustainable 
food and farming practices have multiple positive effects on our 
nation's health, wellness, and wallets.
    First, I must express that it is imperative that we pass the bill 
this year, in 2012. As the farmers, emergency food providers, and food 
advocates I interact with in Michigan are planning for the future while 
providing for the present, they need to know what food and farm 
policies and programs they can expect as we move into 2013 and beyond.
    In addition to passing the bill in 2012, there are several other 
points I urge you to consider in your process.

    1. America needs a farm bill that creates jobs and spurs economic 
        growth. Where I live in Ypsilanti, Michigan, food and farming 
        businesses are part of a thriving revitalization of our local 
        and regional economy. More and more, people want to understand 
        and take part in our food system. Lots of small to medium food 
        and farming enterprises have sprouted up in Southeast Michigan, 
        collectively contributing to our communities by providing 
        healthy, affordable food along with jobs. By supporting 
        programs like the Value-Added Producer Grants Program and 
        guaranteeing $30 million of mandatory funding per year, you can 
        help VAPG provide seed money to help farmers innovate in 
        agriculture and create jobs while securing a sustainable path 
        to market-based farm profitability.

    2. America needs a farm bill that makes healthy food widely 
        available to all Americans--including schoolchildren! I have 
        personally seen sixth graders in Wayne, Michigan light up as 
        they learned how to plant potatoes in their school garden. Even 
        as they learned about the importance of making healthy food 
        choices, the snacks and lunch they are provided with do not 
        help reinforce that lesson. We must provide flexibility for 
        states to use existing food procurement programs to purchase 
        fresh, healthy food from local farmers and ranchers.

    3. America needs a farm bill that protects the ecosystems of which 
        we are a part and on which we rely. I am 28 years old, and I am 
        concerned about the soil, air, water, and wildlife not only in 
        the United States, but around the world. Growing up in Michigan 
        and visiting family all over the country, natural landscapes 
        are an active part of our daily lives. The health and 
        regenerative ability of ecosystems are deeply connected to the 
        future of our ability to farm and provide food for this 
        country. As you write this bill, please protect the 
        Conservation Stewardship Program from unfair funding cuts, and 
        improve it by ranking applications solely on their conservation 
        benefits. So many farmers count on CSP and other conservation 
        programs to conserve soil for future generations, keep water 
        and air clean, and create habitat for wildlife--all while 
        farming profitably!

    4. America needs a farm bill that invests in the next generation of 
        farmers and ranchers. As a co-founder of the Michigan Young 
        Farmer Coalition, a grassroots organization networking young 
        farmers and food advocates in our state, I can tell you with 
        certainty that there are many young people in this country who 
        are ready and willing to take on the responsibility of farming 
        to feed our country now and through the next generation. As 
        with any business, it takes a lot to break into farming and 
        earn a livelihood. Over the past few years alone, I have seen 
        young farmers who are well educated in both business and 
        agriculture practices, both succeed and struggle as they work 
        to establish food and farming operations. These young people, 
        along with the others who are new to farming, are undeniable 
        assets in this country. I urge you to please guarantee $25 
        million per year in mandatory funding for the Beginning Farmer 
        and Rancher Development Program. We are not alone in our 
        efforts here in Michigan. Grassroots organizations like ours 
        have sprung up around the nation, and in response, young 
        farmers have started a national coalition as well, highlighting 
        the need for a national strategy and commitment to support 
        beginning farmer and ranchers entering agriculture. With an 
        aging farm population, now is the time to invest in the future 
        of American agriculture by nurturing new agriculture start-ups. 
        I cannot urge you enough to please consider the next generation 
        of food and farm business owners & operators as you write this 
        bill.

    5. America needs a farm bill that drives innovation for tomorrow's 
        farmers and food entrepreneurs. Research, education and 
        extension go hand-in-hand with supporting American farmers and 
        ranchers. For every $1 invested in publicly funded agricultural 
        research, $20 in economic activity is generated. Please fund 
        the Organic Agriculture Research and Extension Initiative at 
        $30 million per year in mandatory funding. Investment in 
        agricultural research is vital to continued productivity and 
        innovation in growing and diverse sectors of American 
        agriculture, such as organic agriculture.

    6. America needs a farm bill that provides protection for Americans 
        who are struggling to feed their families. I urge you to 
        refrain from cuts in Nutrition spending. All of the policies 
        and programs I have advocated for above can only serve to help 
        bolster economies which can provide pathways for many people in 
        this nation to earn a livelihood in food and farming 
        businesses, and all of the other economic activity that is 
        generated from thriving local and regional food systems. 
        However, as our Nation's churches and food banks struggle to 
        keep up with the growing demand from many diverse Americans who 
        are now in need of emergency food and longer-term assistance, 
        we cannot consider any cuts to spending in this area. Emergency 
        food providers have expressed the very real concern that they 
        do not have the capacity to absorb the already proposed $4.5 
        Billion in cuts to nutrition spending, let alone any more. 
        Weakening SNAP and other nutrition spending would lead to more 
        hunger and food insecurity as well as higher health care costs. 
        I urge you to maintain SNAP funding and flexible structure, 
        which has had decades of bipartisan support, and to continue to 
        expand and improve on those innovative programs that help SNAP 
        recipients and others gain access to healthy, fresh, affordable 
        food.

    Thank you so much for your consideration and for your dedication to 
securing our Nation's food and farming future.
            Best wishes,

Lindsey Scalera,
Ypsilanti, Michigan.
                                 ______
                                 
                       Comment of Deirdra Scanlon
    Date Submitted: Sunday, May 20, 2012, 1:25 a.m.
    City, State: Lewisburg, WV
    Occupation: Nurse
    Comment: The farm bill is The most pivotal piece in getting our 
citizens out of the disastrous obesity, heart disease, and diabetes 
down spiral we are on. Unhealthy food is cheap and available and 
healthy food is not. Please change the farm bill to subsidize healthy 
organic local foods. Please!
                                 ______
                                 
                        Comment of Michael Schad
    Date Submitted: Friday, May 18, 2012, 4:31 p.m.
    City, State: Fort Myers, FL
    Occupation: HVAC
    Comment: Keep the public's safety (your safety) in mind when 
considering GMO and Pesticide operations.
    No one system should be subsidized or backed as America's system. 
No one system is fault proof, and in time it will become painfully 
obvious the effects of all these potentially dangerous chemicals have 
on the human body.
    I fear that by then it will be too late.
                                 ______
                                 
                       Comment of Cynthia Schantz
    Date Submitted: Saturday, March 17, 2012, 10:44 a.m.
    City, State: Long Beach, CA
    Occupation: Unemployed Archaeologist/Anthropologist
    Comment: I support my local food bank, and I know they are 
struggling right now to meet the needs of my community. I ask that you 
pass a strong farm bill that protects and strengthens programs like 
TEFAP, SNAP, and CSFP. These programs are a lifeline to the millions of 
Americans struggling with hunger, and I urge you make them a priority 
in the next farm bill.
    This is not about people being lazy, this is about hard-working 
people some with educational loans to pay off who had been working and 
living paycheck to paycheck. When the economy tanked and we lost our 
jobs and couldn't get new inferior jobs right away, we too became food 
(and utility and rent) insecure. This is not the USA of the 1950's the 
middle class is collapsing and we need a little help at this moment. 
Please keep American tax-paying citizens when passing the next farm 
bill.
    Thank you.
                                 ______
                                 
                       Comment of Alea Schechter
    Date Submitted: Saturday, May 19, 2012, 1:37 p.m.
    City, State: Paauilo, HI
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: I am a coffee and organic vegetable farmer in Hawaii. I 
chose to change my lifestyle so that I could include farming to not 
just want a difference in my own life, but to be the change I wish to 
see in the world. It has been difficult and rewarding at the same time, 
yet I believe that the American government has a responsibility to 
small farmers and the economy to ensure a strong, sustainable, healthy 
food future for all of it's citizens.
    There needs to be better access and resources for small farmers to 
learn about and receive grants and funding. It takes a lot to just be a 
farmer, getting the help we need, quickly and easily is essential and 
should not be a whole other ``job'' in itself for us to undertake.
    Farms and farmers are the foundation of why America is a rich and 
prosperous country. If we want to remain this way, please give the 
support that this vital industry needs to produce the best possible 
products for American people to be healthy and happy.
    Mahalo!
                                 ______
                                 
                       Comment of Bruno Scheffler
    Date Submitted: Friday, May 18, 2012, 9:12 p.m.
    City, State: Houston, TX
    Occupation: Construction Worker/Pipefitter
    Comment: Please do not make cut to the food banks. You people have 
given our money to countries who want to kills us. You have helped 
Detroit the car manufacturers with our tax dollars. You give billions 
to the rich oil companies. You give yourselves pay increase and 
benefits that the rest of us working people do without. And now you 
want to cut money to our food bank. No! These people need it and then 
some. I know this won't make a difference because you will justify 
whatever you do. But if you do make a cut into the food bank program it 
will be shameful. Help them like you've help yourselves.
            Thank you,

Bruno Scheffler.
                                 ______
                                 
                        Comment of Ken Schefter
    Date Submitted: Friday, May 18, 2012, 7:07 p.m.
    City, State: Olathe, KS
    Occupation: Operations Manager/Homeowner
    Comment: We must move money away from direct subsidies and support 
sustainable/organic agriculture if we have any chance of maintaining a 
level of food production capable of meeting our future needs. Increase 
funding for the NOP and conservation programs!
                                 ______
                                 
                       Comment of Jacob Scheidler
    Date Submitted: Saturday, May 19, 2012, 1:00 a.m.
    City, State: San Francisco, CA
    Occupation: Gardener
    Comment: Hello,

    I am writing in support of a farm bill that actively supports small 
scale, organic farmers, while cutting back on subsides to industrial 
agribusiness. Current legislation makes it nearly impossible for 
farmers to diversify their crops, grow open pollinated varieties, or 
participate in small scale meat production. I urge you pass a farm bill 
that encourages farmers to move forward into a food system that is no 
longer dependent on patented seeds, petroleum, and synthetic chemicals, 
and is instead founded on smaller, local, organic, and sustainable 
practices.
    Thank you.
                                 ______
                                 
                        Comment of Donna Schein
    Date Submitted: Tuesday, May 15, 2012, 11:23 a.m.
    City, State: Annapolis, MD
    Occupation: Food Service Executive
    Comment: FNS and Nutrition education programs for K-12 are 
detrimental to the future health of our citizens. Please continue to 
fund programs at the necessary levels.
    Thank you.
                                 ______
                                 
                         Comment of Sue Schell
    Date Submitted: Friday, May 18, 2012, 12:54 p.m.
    City, State: Evanston, IL
    Occupation: Author
    Comment: Please consider sustainable agricultural means for 
farming. The pesticides not only are hurting us by the residue on our 
fruits & vegetables, but also is polluting our fresh water supply, 
which with global warning, is becoming more and more of a problem for 
many of the world's people.
    Please think carefully about what we are doing to our future, if 
not for us, our progeny.
                                 ______
                                 
                      Comment of Doug Schenkelberg
    Date Submitted: Friday, May 11, 2012, 9:44 a.m.
    City, State: Chicago, IL
    Occupation: Vice President of Advocacy and Outreach, Greater 
Chicago Food Depository
    Comment: Dear House Agriculture Committee Members,

    The Greater Chicago Food Depository appreciates the opportunity to 
provide comments on the farm bill. As the food bank for Cook County, 
the Food Depository distributes food through a network of 650 pantries, 
soup kitchens and shelters to 678,000 adults and children every year. 
Currently, 807,690 people in Cook County--one in six--are struggling to 
access food. Nearly one in four children doesn't know where their next 
meal is coming from. The Food Depository has served 58 percent more 
people at our pantries in the last fiscal year than the previous 3 
years, and we could not provide current levels of food assistance 
without significant support from TEFAP, nor could we meet increased 
demand if current funding levels and structure of SNAP and other 
Federal nutrition programs were eroded.
    We urge the House Committee on Agriculture to protect and 
strengthen SNAP in the farm bill, and keep in mind the following 
priorities:

  <bullet> Oppose proposals to cap or reduce funding for SNAP, restrict 
        eligibility, reduce benefits, or otherwise reduce access or 
        participation in SNAP.

  <bullet> Protect the adequacy of the SNAP benefit by restoring the 
        cut to the ARRA SNAP benefit increase.

  <bullet> Adjust the benefit amounts in a timely manner so it reflects 
        current food prices at the time of purchase.

  <bullet> Increase the minimum benefit so that elderly households 
        receive at the least an amount equivalent to the floor set in 
        the 1970s.

  <bullet> Fully allow SNAP benefits to be adjusted when high housing 
        costs consume more of a family's income.

  <bullet> Improve earnings disregards and other benefit computation 
        rules.

  <bullet> Extend the program to needy people now excluded from 
        benefits by arbitrary eligibility rules.

  <bullet> Allow all states to operate Supplemental Security Income 
        (SSI) CAP model that seamlessly enrolls SSI recipients into 
        SNAP, and encourage other data matching initiatives.

  <bullet> Provide adequate resources to states and community partners 
        for administration of SNAP and outreach and nutrition education 
        by restoring a greater Federal share in administrative expenses 
        and enhanced Federal matches for state investments in 
        operational improvement.

  <bullet> Encourage better nutrition by maintaining nutrition 
        education provisions and ensuring that retailer standards 
        balance adequate access to stores with a range of healthy foods 
        and moderate prices, as well as equipping all farmers' markets 
        with EBT capability.

    We also urge you to strengthen TEFAP and CSFP in the farm bill. 
Please include an increase in mandatory funding for TEFAP foods by 
providing a trigger that increases the funding level available for 
commodity purchases in times of high unemployment, and make TEFAP 
Storage and Distribution funds mandatory. In addition, we ask that the 
Secretary of Agriculture is given the authority to make bonus 
commodities available in times when unemployment rates are high. We 
also encourage the Committee to transition CSFP to a seniors-only 
program, while grandfathering in current participants, and expand 
eligibility for the program from 130% to 185% of the Federal Poverty 
Line.
    Once again, thank you for this opportunity to provide comments on 
the importance of Federal nutrition programs like SNAP, TEFAP and CSFP 
in the farm bill.
            Sincerely,

Doug Schenkelberg,
Vice President of Advocacy and Outreach,
Greater Chicago Food Depository.
                                 ______
                                 
                         Comment of Amy Scherer
    Date Submitted: Saturday, May 19, 2012, 1:12 a.m.
    City, State: Menlo Park, CA
    Occupation: Sales
    Comment: Don't want to see subsidies going to growers of wheat, 
corn and soy! Would like to see support to increase small farms again 
which are critical to production of healthier animals and produce that 
isn't laden with pesticides and hormones.
    I just want to see quality vegetables available to all for great 
prices.
                                 ______
                                 
                       Comment of Carol Scherick
    Date Submitted: Sunday, May 20, 2012, 7:05 p.m.
    City, State: Jamaica, NY
    Occupation: Retired
    Comment: It is absolutely imperative that we begin to support the 
independent farmer and the healthy way he produces our food, and stop 
supporting Big Ag which is not only destroying our environment and 
land, but it making us a nation of sick people with the adulterated, 
chemical-laden food that it presents to the people.
                                 ______
                                 
                       Comment of Robert Schermer
    Date Submitted: Monday, May 07, 2012, 5:54 p.m.
    City, State: Jericho, VT
    Occupation: Retired Teacher
    Comment: Our people are starving! Please support strong SNAP, 
TEFAP, and CSFP programs as for 1 in 7 Vermonters, many of them 
children, these programs are their only hope to avoid hunger and 
malnutrition. Unemployment and underemployment are endemic in the U.S. 
Now is not the time to cut back on these programs.
                                 ______
                                 
                      Comment of Patricia Schiewe
    Date Submitted: Saturday, May 19, 2012, 6:10 a.m.
    City, State: Lake Oswego, OR
    Occupation: Therapist
    Comment: I just read an article about how the farmers are 
prospering and that now they are producing 3 times as much corn per 
acre but it did not mention the cost of the seed, chemicals, and 
fertilizers that it took to do that. Also did not mention the fact that 
that corn was laced with GMO toxins and had little nutritional value 
and that the people eating it were probably unhealthy and fat and the 
cost of keeping them healthy was skyrocketing adding billions to our 
nation's health bill.
                                 ______
                                 
                       Comment of Valerie Schilk
    Date Submitted: Saturday, May 19, 2012, 2:20 p.m.
    City, State: Pahoa, HI
    Occupation: Horticulture Crew at Wellness Center
    Comment: Living in Hawaii, or anywhere really, it is critical to 
show local support to our farmers and friends. After reading the book, 
Everything I want to do is Illegal, my respect grew tenfold for all 
farmers across the world. Farmers market are the main source of our 
food intake here. Visiting at least 2 a week, we show our support and 
have even attending city meeting to help one of them stay alive after 
being threatened to be shut down due to permitting and whatnot. Aiding 
small farms and ending subsidies. I have come to learn a lot of farming 
is a game and pretty much entails how you can scoot your way out of 
loop holes. I support the Food and farm bill, along with all local 
farmers.
                                 ______
                                 
                        Comment of Lisa Schiller
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: North Las Vegas, NV
    Occupation: Administrative Assistant
    Comment: Please do the right thing. Consider you grandchildren's 
grandchildren when adopting a new farm bill. Please don't forget that 
you are accountable for your choices.
            Sincerely,

Lisa Schiller.
                                 ______
                                 
                      Comment of Francis Schilling
    Date Submitted: Friday, May 18, 2012, 5:43 p.m.
    City, State: Vail, AZ
    Occupation: Retired
    Comment: I firmly believe that the continued weakening of the 
American family farmers' economic base via the stifling of competition 
in favor of corporate food monopolies is a critical issue to address if 
food production in the U.S. is to remain vital. Furthermore, it is 
placing an onerous burden on small farm operations which is in direct 
opposition to the direction this country needs to move if we are to 
return to having the safest food supply in the world. Giving agri-biz 
even more disproportionate benefits relative to small family farms than 
they already enjoy is the Last thing that that my government should be 
about!
                                 ______
                                 
                       Comment of Jarret Schlaff
    Date Submitted: Friday, May 18, 2012, 12:16 p.m.
    City, State: Detroit, MI
    Occupation: Nonprofit Case Worker
    Comment: Please listen to the voice of the people and have an 
emphasis on organics and locally grown food. We need to plan for the 
future and make it easier for our communities to have access to fresh, 
local, healthful produce. Thank you for your service and consideration.
            Best regards,

Jarret.
                                 ______
                                 
                       Comment of Alvin Schlangen
    Date Submitted: Friday, May 18, 2012, 9:22 a.m.
    City, State: Freeport, MN
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: 50-150 acres
    Comment: Get out of subsidies altogether. Consumers ultimately end 
up paying for your involvement in the food supply as well as for the 
mediocre food itself. Teach the basics of cooking & nutrition and let 
demand shape production. Allow only raw materials for welfare and 
school food and keep Monsanto, Cargill and the drug companies out of 
the kitchen.
                                 ______
                                 
                        Comment of Eric Schmall
    Date Submitted: Friday, May 18, 2012, 3:41 p.m.
    City, State: San Diego, CA
    Comment: If there is anything that is important to me, it's knowing 
my food is going to supply me with the vitamins and minerals I need 
while not being a burden to my immune system. Please make that happen.
                                 ______
                                 
                    Comment of Linda A. Schmalstieg
    Date Submitted: Saturday, May 19, 2012, 2:20 p.m.
    City, State: Houston, TX
    Occupation: Physician
    Comment: Our health, economy, and way of life all depend on safe 
and accessible food. We cannot continue on the current path of 
corporation-controlled nutrition--it will not keep up, has decreasing 
nutritional value, and will only continue to skew what is available. 
Skills necessary for building and maintaining adequate and safe food 
supply must be retained and nurtured in our general population before 
those skills are totally lost. Please consider these points in your 
deliberations.
            Thanks,

LAS.
                                 ______
                                 
                       Comment of Donald Schmidt
    Date Submitted: Friday, May 18, 2012, 4:44 p.m.
    City, State: Fargo, ND
    Occupation: Retired
    Comment: The next farm bill should recognize and support organic 
and family farms. Multi-national agribusiness should not be the focus. 
They can take care of themselves.
                                 ______
                                 
                        Comment of Megan Schmidt
    Date Submitted: Sunday, May 20, 2012, 10:29 a.m.
    City, State: Sag Harbor, NY
    Occupation: Design Consultant
    Comment: My family supports local food production and anything that 
will turn the tide away from the vicious cycle of industrial food 
production such as subsidies to farms producing absurd amounts of corn 
and soybeans; assistance to farmers who choose to improve the quality 
of their soil and food by rotating crops and utilizing organic farming 
practices; support for new farmers and those who encourage raising 
grass-fed animals; new USDA standards that encourage small-scale meat 
processing operations; and perhaps even tax incentives for individuals 
who support local agriculture through participation in local food co-
ops or CSA programs. Thank you!
                                 ______
                                 
                        Comment of Beth Schmitt
    Date Submitted: Tuesday, May 15, 2012, 8:15 p.m.
    City, State: Muskego, WI
    Occupation: Holistic Health
    Comment: The farm bill Needs to support local and sustainable food. 
We have the right to know our farmer and where our food comes from. But 
this can only spread to more people with more money allocated towards 
the organic growing community. We need to support this movement for 
people to get healthy and live longer. Thank you for your time.
                                 ______
                                 
                        Comment of James Schmitt
    Date Submitted: Saturday, May 19, 2012, 8:28 a.m.
    City, State: Forest Grove, PA
    Occupation: Retired Pilot, Organic Farmer
    Comment: Lets stop feeding C.R.A.P. to America. Richest country in 
the world, with positively FOUL eating habits because of our 
concentration on Perceived cost of food rather than Actual cost.
                                 ______
                                 
                       Comment of Kristen Schmitz
    Date Submitted: Friday, May 18, 2012, 12:41 p.m.
    City, State: Vieira, FL
    Occupation: Education
    Comment: Please increase subsidies for small scale organic 
sustainable producers and remove them for large agribusiness. 
Agriculture needs to switch a locally based model and our funding needs 
to represent that priority.
    Thank you.
                                 ______
                                 
                       Comment of David Schneider
    Date Submitted: Saturday, May 19, 2012, 11:38 p.m.
    City, State: Tolland, CT
    Occupation: Retired
    Comment: Safety for farm workers and consumers through organically 
grown produce on non-factory farms, especially local produce to reduce 
fuel waste, price rises and increase food quality.
                                 ______
                                 
                      Comment of Richard Schneider
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: Carmel Valley, CA
    Occupation: Language Translation Services
    Comment: Dear leaders:

    In considering a farm bill please take time to reflect on the well 
being of human beings first and not on monetary considerations 
exclusively. May you be guided by reliable information and the true 
awareness you all are.
    Blessings are sent to all.
                                 ______
                                 
                     Comment of Kelly Schneiderhan
    Date Submitted: Friday, May 18, 2012, 5:13 p.m.
    City, State: Eugene, OR
    Occupation: Physical Therapist
    Comment: Accurate labeling of organic and GMO products allows 
citizens to make informed choices. Please protect our freedom to be 
conscientious consumers by including accurate and meaningful labeling 
in farm legislation. Many thanks for helping us to speak for ourselves 
with our consumer dollars.
                                 ______
                                 
                        Comment of Dick Schoech
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Arlington, TX
    Occupation: Retired
    Comment: I was raised on a small dairy farm and have watched small 
farms suffer as large agribusinesses hog most of the agriculture 
subsidies. It is time to kick the K street lobbyists out of your office 
and listen to family farmers who are struggling. We need water & soil 
conservation programs in Texas, local food growers, organic farming, 
farmers markets, programs to combat invasive species, etc. Please 
ignore all the donations that large agribusinesses give Congress and 
address our farm problems.
                                 ______
                                 
                       Comment of John Schoenfeld
    Date Submitted: Thursday, May 17, 2012, 12:35 p.m.
    City, State: Leander, TX
    Occupation: Skilled Trades
    Comment: I'm not fully versed in all that's going on in this 
matter, but with this opportunity I would like to say that I would like 
to see more organic, and sustainable practices in place with all 
farmers, with more of an eye on the bigger producers, meaning, no 
pesticides, and all waste composted and reused on site. Considering the 
hungry in this country I would appreciate all that isn't viewed as a 
waste, but also not marketable, be donated, not destroyed. Thank you 
for your time, and this opportunity.
                                 ______
                                 
                        Comment of Meg Schofield
    Date Submitted: Friday, May 18, 2012, 4:25 p.m.
    City, State: Kapaa, HI
    Occupation: Educator
    Comment: Consumers want Healthy, sustainably and Ethically produced 
food. Significant reform is needed to level the playing field for small 
family farms versus giant agribusiness, with their environmentally and 
morally destructive practices.
                                 ______
                                 
                      Comment of Stephen Schofield
    Date Submitted: Friday, May 18, 2012, 4:01 p.m.
    City, State: Wyoming, MI
    Occupation: Law Student
    Comment: Stop playing politics with our food. We need clean, safe 
and inexpensive food that is produced in this country. Our farms need 
support not multi-national corporations. Let's get this done!
                                 ______
                                 
                        Comment of Aaron Scholes
    Date Submitted: Friday, May 18, 2012, 3:05 p.m.
    City, State: Salt Lake City, UT
    Occupation: Soldier
    Comment: Wealthy interest groups and their lobbyists are destroying 
our country, among other things. Just do what's the best for the 
people. Sadly we have come to expect less of our politicians.
                                 ______
                                 
                       Comments of Mark Schonbeck
    Date Submitted: Sunday, May 20, 2012, 1:31 p.m.
    City, State: Floyd, VA
    Occupation: Newsletter Editor, Virginia Association for Biological 
Farming
    Comment: Thank you for the opportunity to offer comments on the 
2012 Federal Farm Bill. I am writing as a U.S. citizen, and as an 
advocate and service provider for family farms engaged in sustainable 
agricultural production, to advocate for a farm bill that is truly an 
Agriculture Reform, Food, and Jobs Act.
    I am a consultant in sustainable agriculture, with experience in 
organic and low-input soil, crop, and weed management for vegetables, 
fruits, and row crops in Virginia and adjacent states in the Mid-
Atlantic and Southeast. In this capacity, I often work with aspiring 
and beginning producers who are highly motivated to help meet the 
soaring demand for fresh, healthful, locally-grown fruits, vegetables, 
and other foods; and to protect and improve the land for future 
generations. Through my interactions with both beginning and more 
experienced producers and other service providers, I have come to 
understand the vital importance of Federal farm policy and programs in 
several areas:

    1. Beginning Farmer and Rancher training, technical assistance, and 
        access to land, capital, and credit

    2. Rural Development

    3. Local and Regional Food Systems, and related essential 
        infrastructure.

    4. Conservation

    5. Research, Education and Extension in organic and sustainable 
        systems, specialty crop production, and best practices for long 
        term resource conservation and soil improvement

    6. Classical breeding programs leading to the release of farm-ready 
        public varieties and livestock breeds.

    Following are some specific recommendations for the 2012 Farm Bill:
    Provide mandatory funding for the Beginning Farmer and Rancher 
Development Program (BFRDP) at $25 million per year. The average age of 
farmers in the U.S. is near 58 years and rising, and some 75% of the 
nation's farmland is expected to change hands in the next 15 years. 
Meanwhile, a growing number of young people would like to enter the 
farming profession, yet encounter some tough hurdles: acquiring the 
land, capital, credit, and markets to launch a farming enterprise, as 
well as essential production, conservation, marketing, and business 
management skills. When new or transitioning farms fail because any of 
these is lacking, our food system and land base suffer, and the future 
becomes less secure. Thus it is vital at this time for the U.S. 
agricultural system to recruit, train, and successfully establish a new 
generation of farmers and land stewards to provide sufficient healthful 
food for tomorrow.
    I have had the privilege of serving on the Curriculum Committee of 
the Virginia Beginning Farmer and Rancher Coalition Project, a BFRDP-
funded project that is developing vital resources for aspiring and 
beginning producers in Virginia. Coordinated through Virginia Tech with 
a diverse network of 25 partner organizations, the Virginia Beginning 
Farmer and Rancher Coalition has drafted a comprehensive training 
curriculum for beginning producers, covering whole farm planning, land 
acquisition and tenure, sustainable production practices, marketing, 
and business management. Several coalition partners are utilizing this 
curriculum in their beginning farmer training and technical assistance 
programs. One of these is SustainFloyd, a community development non-
profit in Floyd, VA that is planning a Working Model Farm and Land-
Based Learning Center at which new farmers will receive practical 
hands-on training and experience that enables them to launch their own 
farm enterprises.
    The Virginia Beginning Farmer and Rancher Coalition is also 
developing a statewide Farm Mentor Network to connect new and 
experienced farmers with one another and other resources in the region. 
In my consulting work, I provide beginning farmers with science-based 
technical assistance in production; however they often need additional 
assistance in areas in which I am not trained, such as business 
management or gaining access to land. I refer clients to the Coalition 
and its Farm Mentor Network for these needs, as well as for the kind of 
hands-on training that only a farmer mentor can provide. Without the 
BFRDP, this Coalition Project would not have been possible, and my 
capacity to effectively assist aspiring new farmers in Virginia would 
remain more limited.
    With a budget of $19 million per year under the 2008 Farm Bill, the 
BFRDP has supported many projects like this across the U.S., but has 
also had to turn down numerous other equally worthy and innovative 
project proposals. Given today's urgent need to help new farmers get 
established, and given the job creation potential of these endeavors, 
the $10 million/year level of BFRDP funding recently proposed by the 
Senate Agriculture Committee is wholly inadequate, and a minimum of $25 
million/year is needed to meet the challenges and opportunities 
presented by the aging of the current farmer population and the surge 
of interest in farming among the younger generation.
    The 2012 Farm Bill should also adopt other key provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236), including $5 
million annual funding for the Beginning Farmer and Rancher Individual 
Development Accounts, conservation program set-asides for beginning 
producers, priorities for projects benefiting beginning farmers within 
the Value Added Producer Grants, and a research priority for beginning 
producers in the Agriculture and Food Research Initiative (AFRI) and 
other USDA research programs. One especially important element of this 
Act is increased funding for Conservation Reserve Program Transition 
Incentive Program (CRP-TIP), which provides an incentive to land owners 
with land coming out of the CRP to lease or sell that land to beginning 
farmers who implement resource-conserving production systems such as 
management intensive grazing, or organic crop production.
    The 2012 Farm Bill must support innovative research in organic and 
sustainable agriculture, and provide extension, education, information, 
and other vital support for organic and sustainable producers. In a 
series of reports from 2008 to present, based on the experience of 
millions of small-scale producers in Africa and other developing 
regions of the world, the United Nations Environment Program (UNEP) 
showed that organic and agro-ecological farming systems have the 
greatest potential to improve yields, protect and improve soil and 
other resources, and enhance poor communities' capacity to feed 
themselves and meet basic living, health, educational, and social 
needs. As fossil fuels become scarcer, soil and water quality come 
under increasing stress, and climate change brings unpredictable 
consequences, organic and sustainable farming practices will become 
increasingly important to the future security and adequacy of the U.S. 
food system as well.
    Specifically, I urge the House Agriculture committee to adopt the 
following measures in drafting the farm bill: Organic Research and 
Extension Initiative (OREI) mandatory funding at $30 million per year; 
permanent authorization for the Sustainable Agriculture Research and 
Education (SARE) program and the National Sustainable Agriculture 
Information Service (aka ATTRA); the Organic Certification Cost Share 
at $11.5 million per year (as proposed by the Senate Ag Committee in 
its recent draft farm bill); the Organic Data Initiative at $5 million 
(Senate level) and $5 million for National Organic Program technology 
upgrades (Senate level). In addition, the new farm bill should 
eliminate discrimination against organic producers in crop insurance 
(currently, organic producers are charged higher premiums); and also 
make the per-contract cap for the Environmental Quality Incentive 
Program the same for the Organic Initiative (currently $80,000) and for 
the regular EQIP (currently $300,000).
    The SARE and ATTRA programs provide vital informational and 
technical services for producers at the incredibly low annual cost of 
just 20 cents per U.S. taxpayer. In my consulting practice, I utilize 
SARE manuals and publications as primary information resources, and 
refer clients to ATTRA for in-depth information bulletins and one-on-
one technical assistance with questions for which I do not have the 
experience to provide complete answers. The loss of either of these 
programs because of a lack of funding would severely limit my ability 
to provide the quality of service I want to offer to farmers.
    On a similar note, the 2012 Farm Bill should maintain adequate 
funding levels for specialty crop research, including the Specialty 
Crop Research Initiative (SCRI--at the Senate Ag Committee's level of 
$50 million per year), and the Specialty Crop Block Grant program 
(SCBG--again, the Senate proposed level--$70 million). With public 
health professionals urging Americans to consume more fresh fruits and 
vegetables to address the national epidemic of obesity, type II 
diabetes and other degenerative diseases, it is vital to ensure that 
our school children, elders, and lower-income communities have 
sufficient access to these foods. Continued robust funding for SCRI and 
SCBG will help farmers meet this need through domestic production.
    The 2012 Farm Bill can also improve access to healthful, fresh food 
for all Americans by adopting key provisions of the Local Farms, Food, 
and Jobs Act (HR 3286), such as provisions to allow use of SNAP and 
Electronic Benefits Transfer(EBT) to purchase fruits and vegetables, 
funding the Community Foods Projects Program at the Senate-recommended 
level of $10 million per year, allowing school lunch programs to use 
some of the commodity funds to purchase fresh local farm products, and 
conservation technical and financial assistance to farmers serving 
local markets. In addition to enhancing food quality, all of these 
measures would create jobs and entrepreneurial opportunities, and 
strengthen rural economies.
    One other urgent need in our agricultural system is to restore the 
genetic diversity and regional adaptability of our crops and livestock 
through a revitalized public breeding program. To address these needs, 
the 2012 Farm Bill should set aside 5% of Agriculture and Food Research 
Initiative (AFRI) funding for classical breeding leading to the release 
of farmer-ready public crop varieties and livestock breeds, to make 
classical breeding a priority in ARS research efforts, and to provide 
coordination among ARS, extramural, and non-governmental public 
breeding endeavors. With the ongoing erosion of crop and livestock 
genetic diversity; the need for new varieties adapted to different 
regions, shifting climate patterns, and production systems less 
dependent on intensive fossil fuel inputs; and the emerging agronomic, 
ecological, socioeconomic, and possible animal and human health 
drawbacks of genetically engineered crops and patented seeds, the need 
for a vigorous classical public breeding program has never been more 
important to U.S. agriculture. Farmers need varieties and livestock 
breeds that are responsive to lower input, resource conserving 
production systems such as organic, and whose on-farm use and 
reproduction (e.g., seed saving) is not restricted by utility patents.
    The 2012 Farm Bill should maintain funding for the Conservation 
Stewardship Program (CSP) and other Title II Conservation programs. 
Conservation has already taken more than its share of funding cuts in 
the past few years. Meanwhile, in an alarming trend caused by a 
combination of intensified production due to high demand and prices for 
commodities, and weather extremes (floods and droughts), our nation's 
soils are eroding and our water resources are degrading at increased 
rates. This is the time to strengthen our Conservation programs, not 
gut them through excessive funding cuts.
    Finally, the 2012 Farm Bill must do all it can to ensure adequate 
funding and staffing for NRCS, Extension, FSA, and other USDA agencies 
to provide the services they are mandated to do. Part of my work in 
recent years has included giving presentations at training workshops in 
organic horticulture and conservation for agricultural professionals, 
through the SARE Professional Development Program and the NRCS 
Conservation Innovation Grant program. During these events, I have 
talked with many dedicated NRCS and Extension personnel who want to 
spend more time in the field helping farmers enhance their triple 
bottom line--profit, land stewardship, and quality of life--through 
conservation planning and other vital technical assistance. However, 
with continual staffing and funding cuts, these hard working 
individuals find themselves being asked to do more and more with less 
and less, and having to spend more time at the desk dealing with the 
paperwork. This has given me a different perspective on the 
frustrations of farmers who sometimes receive inadequate service from 
NRCS or other USDA personnel. Our Extension and Conservation programs 
can do so much for our farmers and our farmland--provided that they 
have the funding and staffing support they need. I was shocked to learn 
that part of the budget cutting proposals in 2011 included slashes of 
well over $100 million from each of several key USDA branches, 
including Extension, FSA, and NRCS. This does not save tax dollars in 
the end--it only makes it harder for our nation to realize the full 
benefits of programs like the CSP because the agency does not have the 
resources it needs to deliver the program effectively.
    I am aware of the budget constraints under which the Agriculture 
Committees must develop the 2012 Farm Bill, and am also aware that the 
above recommendations, taken together, entail a significant sum. 
Therefore, I would like to recommend the following measures to offset 
the added spending:
    Adopt the Senate Ag Committee's recommended reform to Title I, 
which would close the loophole that allows a single large farm to 
receive commodity payments for several farms. This is a loophole that 
has needed closing for many years, and I welcome the Senate Agriculture 
Committee's historic step in proposing this measure.
    Adopt payment limits, one-payment-per-farm, and conservation 
compliance criteria for Crop Insurance commensurate with those that 
would be implemented for the Commodity Title under the Senate proposal. 
With crop insurance programs having no per-farm cap nor conservation 
requirements, and now consuming somewhat larger annual sums of taxpayer 
dollars than the Commodity Title, setting the same criteria for both 
could save a billion dollars or more per year. This would be enough to 
maintain level funding for the Conservation Title and cover the several 
funding requests in the above recommendations for beginning farmers, 
local foods, organic, and research programs.
    Set a firm per-farm cap of $150,000 or $200,000 on Environmental 
Quality Incentives Program (EQIP) contracts, applicable to all 
operations without exception. Currently, Confined Animal Feeding 
Operations (CAFOs) can receive larger contracts (up to $450,000) 
through a special waiver provision. Farmers who seek EQIP assistance to 
adopt major resource protection measures at more moderate cost (through 
practices such as fencing for management intensive grazing systems, 
terracing for horticultural production on sloping land, or improved 
crop rotations, riparian buffers, etc for cropland) should rank higher 
priority than agribusinesses who continue to endanger water and other 
resources through the inherently unsustainable CAFO system. In fact, 
subsidies for CAFO's to mitigate their pollution should be gradually 
phased out, and firm regulations adopted to require that they clean up 
their environmental impacts at their own expense. If such stringent 
measures result in the CAFOs gradually going out of business and being 
replaced by smaller, family-operated, ecologically-friendly, pasture-
based livestock production and integrated crop-livestock systems, this 
will mean safer, more healthful meat for the consumer, cleaner water, 
and more balanced nutrient cycles. It will also create several 
wholesome jobs or entrepreneurial opportunities for each dangerous CAFO 
job eliminated.
    Prioritize USDA research to address vital research tasks and topics 
that private industry cannot or will not address on its own. For 
example, industry will be highly motivated to develop new fertilizers, 
pesticides, and other inputs (whether conventional or organic), but not 
to research management practices by which farmers can sustain soil 
fertility and crop health while reducing the need for purchased inputs. 
Likewise, today's seed-biotech companies will continue to research 
patented crop varieties whose production they can control tightly, not 
offer public varieties from which producers can save seed or select 
land races adapted to their particular soil and microclimate. Thus, if 
USDA ARS, as well as AFRI and other extramural programs focus on 
classical breeding efforts (which cost about $1 million per variety 
released) rather than high-budget genomics and biotech research 
(supporting industry development of GMO varieties at a total cost of 
about $50 million per variety), USDA can accomplish a lot more research 
vital to the nation's food and agricultural system while keeping the 
total research budget level. Similarly, USDA-funded research into 
sustainable production and resource conservation systems that rely 
mainly on on-farm and local resources, and less on expensive purchased 
inputs, will yield greater public benefit per tax dollar invested.
    Thank you for taking my recommendations and comments into account 
in your work on the 2012 Farm Bill.
    Date Submitted: Sunday, May 20, 2012, 4:24 p.m.
    Comment: Thank you for the opportunity to provide input on the 2012 
Farm Bill. In this communication, I speak on behalf of the Virginia 
Association for Biological Farming (VABF), for which I serve as the 
newsletter editor and farm policy liaison. VABF is Virginia's primary 
nonprofit membership organization for organic and sustainable farmers 
and gardeners. In addition to co-sponsoring with Virginia Cooperative 
Extension the annual Virginia Biological Farming Conference, VABF 
conducts on-farm research, offers field days and farm tours, and 
participates in the Virginia Food Systems Council and the Virginia 
Beginning Farmer and Rancher Coalition Project.
    We would like to submit the following recommendations for the 2012 
Farm Bill to make it truly an Agriculture Reform, Food, and Jobs Act:

    1. Renew mandatory funding for the Beginning Farmer and Rancher 
        Development Program (BFRDP) at $25 million per year. With the 
        average age of farmers in the U.S. near 58 years and still 
        rising, it is vital to recruit, train, and successfully 
        establish a new generation of farmers to secure an adequate, 
        safe, and healthful food supply for America's future.

    The BFRDP, funded at $19 million per year under the 2008 Farm Bill, 
has supported many excellent projects across the U.S. One of these is 
the Virginia Beginning Farmer and Rancher Coalition Project, 
coordinated through Virginia Tech, which has created a diverse 
coalition of some 25 partners including VABF, has developed a 
comprehensive training curriculum for beginning farmers, and is 
establishing a state wide farm mentoring network linking beginning and 
experienced producers. Working with this BFRDP-funded coalition 
multiplies VABF's capacity to help new farmers acquire vital skills, 
adopt resource-conserving practices, and meet the growing public demand 
for healthful local food. The beginning farmer training and support 
offered through this Coalition and other BFRDP projects across the 
nation can create jobs, expand entrepreneurial opportunities, and 
thereby strengthen rural economies.
    One of the most hopeful recent trends in America's food and 
agricultural system has been the upsurge of interest in the farming 
profession among young people and among others seeking a career change. 
Assisting and empowering these aspiring farmers to get off to a 
successful start should be a top priority of Federal farm policy and 
programs, as so clearly stated by Agriculture Secretary Tom Vilsack 
when he challenged the USDA to help recruit and train 100,000 
additional farmers under the 2008 Farm Bill.
    At its current funding level, the BFRDP has received many more top-
notch proposals than it could fund. The $10 million per year proposed 
by the Senate Agriculture Committee for the 2012 Farm Bill is clearly 
inadequate. Thus, we urge the House Agriculture Committee to include at 
least $25 million annual mandatory funds for BFRDP to meet the need of 
today's aspiring farmers and ranchers, and to take full advantage of 
the opportunity they represent.

    2. Adopt other key provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236, introduced by Reps. Tim Walz and 
        Jeff Fortenberry), including $5 million annual funding for the 
        Beginning Farmer and Rancher Individual Development Accounts, 
        increased funding for the Conservation Reserve Program 
        Transition Incentive Program (CRP-TIP), conservation program 
        set-asides for beginning producers, and priorities for projects 
        benefiting beginning farmers within the Value Added Producer 
        Grants.

    3. Maintain a strong set of programs for organic agriculture. 
        Innovative organic and ecological production systems show the 
        greatest long-term potential to provide adequate, nourishing 
        food for all in a time of increasingly scarce fossil fuels, 
        critical soil erosion and water quality concerns, climate 
        instability, and large human populations. We recommend that the 
        2012 Farm Bill support organic producers in several ways: fund 
        the Organic Certification Cost Share at $11.5 million per year, 
        the Organic Data Initiative at $5 million, and $5 million for 
        National Organic Program technology upgrades (levels proposed 
        for these three programs by the Senate Ag Committee); and 
        eliminate crop insurance penalties (higher premiums) against 
        organic producers.

    4. Fund the Organic Agriculture Research and Extension Initiative 
        (OREI) at $30 million per year, and provide permanent 
        authorization for Sustainable Agriculture Research and 
        Education (SARE--at $60 million per year), and the National 
        Sustainable Agriculture Information Service (aka ATTRA--at $5 
        million per year). Producer members of VABF and other farmers 
        and ranchers in our region and across the U.S. make extensive 
        use of the invaluable technical information and support 
        provided by SARE and ATTRA. In addition to publishing several 
        excellent manuals on soil improvement, pest management, and 
        other key aspects of production, SARE has upgraded its website 
        to make the results of over 5,000 SARE-funded research projects 
        easily accessible to the public. In providing these vital 
        services for less than 20 cents per U.S. taxpayer, SARE and 
        ATTRA represent one of the Federal government's most effective 
        use of tax dollars.

    One example of vital OREI-funded research is a planning grant and 
pending proposal for a full research grant to develop organic 
management strategies for the Brown Marmorated Stink Bug. This invasive 
exotic pest causes severe damage to a wide range of horticultural 
crops, and threatens the livelihoods of organic and conventional 
producers alike. The planning grant assembled a diverse, top-notch 
project team with VABF participation; however our vital work, and that 
of many other teams of innovators who are developing proposals on 
equally important questions, depends on sufficient funding for the 
OREI.

    5. Maintain adequate funding levels for specialty crop research, 
        including the Specialty Crop Research Initiative (SCRI--we 
        advocate the Senate Ag Committee's level of $50 million per 
        year), and the Specialty Crop Block Grant program (SCBG--again, 
        we support the Senate proposal of $70 million). Between 2009 
        and 2012, the SCBG program has funded VABF to conduct on-farm 
        demonstration trials and farm field days on organic production 
        and pest management in summer and winter squash.

    With public health professional urging Americans to consume more 
fresh fruits and vegetables to quell the national epidemic of obesity, 
type II diabetes and other degenerative diseases, it is essential to 
ensure that our school children, elders, and lower-income communities 
have sufficient access to these foods. Toward this end, the U.S. must 
enhance local and regional supplies of these perishable items; thus, 
research and extension activities that help farmers produce top quality 
``specialty crops'' is an important investment within the farm bill.

    6. Set aside 5% of Agriculture and Food Research Initiative (AFRI) 
        funding for classical breeding leading to the release of 
        farmer-ready public crop varieties and livestock breeds. With 
        the ongoing erosion of crop and livestock genetic diversity; 
        the need for new varieties adapted to different regions, 
        shifting climate patterns, and production systems less 
        dependent on intensive fossil fuel inputs; and the emerging 
        agronomic, ecological, socioeconomic, and possible animal and 
        human health drawbacks of genetically engineered crops and 
        patented seeds, the need for a vigorous classical public 
        breeding program has never been more important in the history 
        of U.S. agriculture. Although the 2008 Farm Bill included 
        language that made classical breeding an AFRI priority, only 
        one project with the potential to lead to new, farmer-ready 
        public varieties has been funded thus far. We strongly 
        recommend additional language in the 2012 Farm Bill to devote 
        at least 5% of AFRI funding to this vital priority.

    7. Provide mandatory funding for key rural development programs, 
        including $30 million per year for the Value Added Producer 
        Grants Program. In addition to helping innovative farmers and 
        farmer groups to meet the soaring public demand for healthful 
        fresh foods, these programs support rural community economies 
        and job creation. The Senate Ag Committee farm bill fails to 
        provide mandatory funding for any rural development programs, 
        an omission that must be corrected in the final farm bill that 
        goes to the President for signature.

    8. Support the growth of local food systems by adopting other key 
        provisions of the Local Farms, Food, and Jobs Act (H.R. 3286) 
        introduced by Rep. Chellie Pingree. These include enhanced 
        access to fresh fruits and vegetables for low-income Americans 
        through Electronic Benefits Transfer (EBT) and SNAP, funding 
        for the Community Foods Projects Program at $10 million per 
        year (as recommended by the Senate), enhanced Conservation 
        technical and financial assistance to producers serving local 
        and regional markets, a provision to allow school lunch 
        programs to use 15% of their commodity funds to purchase 
        locally grown food, a new Extension initiative (Local and 
        Regional Food System Enterprise Facilitation) to help the 
        neediest parts of rural America develop vibrant local food 
        systems, and much more. All of these provisions will create 
        jobs and restore our economy, as well as contributing to the 
        public health--and many do not entail additional Federal 
        spending.

    9. Protect the Conservation Stewardship Program (CSP) and other 
        Title II Conservation programs from additional funding cuts. 
        With intensified production driven by high demand and commodity 
        prices, and unusually severe erosive rains putting added stress 
        on our nation's soils, farm conservation programs are as 
        necessary now as they were during the devastating Dust Bowl of 
        the 1930s. Our nation's farmers want to take good care of their 
        land, and they need and deserve the support Natural Resources 
        Conservation Service can provide--if Title II programs are 
        adequately funded. Conservation took more than its fair share 
        of past budget cuts, and must not be cut further in the 2012 
        Farm Bill.

    10. Offset the costs of all of the above recommendations through 
        effective reforms to commodity subsidy and crop insurance 
        programs. We commend the Senate Ag Committee for taking the 
        historic step of closing the loophole that has allowed large 
        farms to receive commodity subsidies for several farms, as well 
        as affirming per-farm payment caps and conservation compliance 
        requirements for participation in Title I programs. However, 
        Federal Crop Insurance programs have grown tremendously, and 
        now pay out slightly more tax dollars annually than does Title 
        I. Crop insurance payments are not currently capped, nor 
        subject to sodbuster or other conservation compliance 
        requirements. If the final farm bill adopts the Senate-proposed 
        reform to Title I, applies it also to crop insurance, and 
        adopts a reasonable payment cap and conservation criteria for 
        crop insurance, annual savings could exceed $1 billion, 
        sufficient to cover vital beginning farmer, research and 
        extension, local food system, and rural development programs, 
        and to allow level funding for the Conservation Title.

    Thank you for taking our recommendations into consideration in 
developing the 2012 Farm Bill.
                                 ______
                                 
                        Comment of Amy Schoneman
    Date Submitted: Friday, May 18, 2012, 3:20 p.m.
    City, State: Oakland, CA
    Occupation: Educator/Business Owner
    Comment: Please start making decisions that favor health for 
children, farmers, and regular folks. We have the chance to make 
lasting changes to our nation's farming and food system that will be 
looked upon as a legacy of American ingenuity and foresight.
    We are such a wealthy nation but we are sicker and fatter than 
most. We have to do better.
    Please support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    And think of my two daughters when you do!
    Thank you.
                                 ______
                                 
                        Comment of Meagan Schorr
    Date Submitted: Sunday, May 20, 2012, 10:46 p.m.
    City, State: Iowa City, IA
    Occupation: Student
    Comment: Dear House Agriculture Committee,

    Safety nets for farmers have been in place for almost 30 years that 
ensure that subsidized farmers adhere to conservation practices in 
their fields. Conservation efforts are vital to crops, wetlands, and 
environmental health as a whole. The productivity of our farmlands and 
future resources heavily rely on conservation efforts. Due to the 
possibility of direct commodities being eliminated and conservation 
compliance not being enacted elsewhere our crops, wetlands, highly 
erodible lands, and future resources will be at stake. Steps must be 
taken to ensure that this does not happen.
    During this time, when the farm bill is being prepared by the House 
Agriculture Committee, I urge you to protect our nations land and 
resources. Make sure that conservation complication protections are 
linked with subsidies for crop insurance. Our Nations future economic 
and environmental sustainability rely on conservation efforts.
    Please take all of this into consideration.
            Sincerely,

Meagan Schorr.
                                 ______
                                 
                        Comment of Diane Schrack
    Date Submitted: Monday, May 14, 2012, 10:51 p.m.
    City, State: Highlands Ranch, CO
    Comment: Dear Members of the House Committee on Agriculture,

    The farm bill is one of the most important pieces of legislation 
that you work on because we all need to eat. And we all deserve to eat 
safe and healthy food--from the farms to the grocery stores to our 
children's school lunch programs.
    I ask that you fulfill your responsibility to the citizen's of this 
country by funding the Organic Agriculture Extension Initiative and 
supporting the CSP and the Beginning Farm and Rancher Development 
Program.
    Your job is important. Please legislate like you understand the 
importance of safe and healthy food.
            Thank you,

Diane Schrack.
                                 ______
                                 
                     Comment of Hendrikus Schraven
    Date Submitted: Saturday, May 19, 2012, 12:03 p.m.
    City, State: Issaquah, WA
    Occupation: Landscape Designer Contractor/Organics
    Comment: Please allow us to eat healthy organic food ! in a world 
laden with pesticides and poisons with 75% of our tap water in the U.S. 
Not fit for human consumption! Children diseases like leukemia increase 
40% in a few decades! And so on and on! My question Is: how far Are You 
willing to let this go?
                                 ______
                                 
                       Comment of Judy Schriebman
    Date Submitted: Friday, May 11, 2012, 12:06 p.m.
    City, State: San Rafael, CA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I grow for my family but need to buy from others to fill 
in. This farm bill supports my family's health when it allows direct 
farmer to consumer; when it supports healthy livestock and organic and 
diverse growing practices. We no longer need to subsidize high calorie 
crops--we need to subsidize nutrient dense crops, like fruits and 
vegetables, to make sure our children have the best possible start. We 
also need to support creek setbacks and windrows to support the natural 
bug and bird predators that keep the system healthy.
                                 ______
                                 
                       Comment of Jack Schroeder
    Date Submitted: Sunday, May 20, 2012, 8:48 p.m.
    City, State: New York, NY
    Occupation: Lawyer
    Comment: It is absolutely imperative that GMO infected agricultural 
produce be labeled as such.
    It is imperative that farms infected with GMO pollen from 
neighboring farms against their wishes have full legal recourse against 
those neighboring farms.
    It is absolutely imperative that consumers not be restricted from 
purchasing any agricultural products they wish, including raw milk and 
raw milk products, etc.
                                 ______
                                 
                      Comment of Theresa Schroeder
    Date Submitted: Friday, May 18, 2012, 11:11 p.m.
    City, State: Knoxville, TN
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Many farmers, especially small family owned farms, cannot 
afford the fees and time for paperwork to be certified as ``organic,'' 
or even qualify for any available aid for farmers. Young people can't 
afford to go into sustainable farming. Consumers are confused. 
Developers continue to gobble up land which was farmland. GMOs spread 
and huge companies monopolize seed production, etc. The list goes on. 
This is not the time to endanger the future of farmers, agricultural 
land and the health of our nation by cutting even more funds from 
programs.

  <bullet> I urge the full endorsement of all provisions of the Local 
        Foods, Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you.
                                 ______
                                 
                        Comment of Andrew Schuch
    Date Submitted: Sunday, May 20, 2012, 5:54 a.m.
    City, State: Marshall, NC
    Occupation: Advocate
    Comment: As a former producer, avid gardener, and concerned citizen 
I urge you not to cut any of the needed funds for the promotion and/or 
further study of appropriate (Organic) agricultural methods.
                                 ______
                                 
                      Comment of Jennifer Schultz
    Date Submitted: Thursday, May 10, 2012, 1:25 a.m.
    City, State: Cheektowaga, NY
    Occupation: Retired Disabled RN/BSN
    Comment: We should not endanger the lives of seniors by cutting 
such important programs. These programs are not just for single mothers 
and the working poor; they are also in place for senior citizens. There 
are many seniors that are taking care of spouses who may have dementia 
and Alzheimer's.
                                 ______
                                 
                        Comment of Cindy Schwalb
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: Aiken, SC
    Occupation: Health Coach
    Comment: Please stop subsidizing corporations and support healthy, 
non-GMO, organic food. The studies of organic versus non-organic are 
quite solid. The pesticides detected in blood, the difference in 
minerals and nutrients. We know how we need to eat, and it is time to 
make this affordable for all. Thank you for very much for your service 
and commitment to real food for families.
                                 ______
                                 
                        Comment of Amy Schwartz
    Date Submitted: Friday, May 18, 2012, 10:01 a.m.
    City, State: Dowelltown, TN
    Occupation: Artist and Teacher
    Comment: I would like our government to protect the birthright of 
all people on this planet. Clean air, clean water, food supply that is 
not poisoned should be our birthright. It should be a gift from the 
last generation to us, and it should be a gift from us to the next 
generation.
                                 ______
                                 
                       Comment of Burton Schwartz
    Date Submitted: Friday, May 18, 2012, 12:44 p.m.
    City, State: Port Jefferson Station, NY
    Occupation: Retired
    Comment: In order to have a healthy citizenry, you must provide 
support for those who grow food organically. Industrial farming has led 
to food that is not providing the nutrition Americans need.
                                 ______
                                 
                     Comment of Elizabeth Schwartz
    Date Submitted: Tuesday, May 15, 2012, 11:43 a.m.
    City, State: Portland, OR
    Occupation: Writer/Community Organizer
    Comment:

    (1) A $36 million cut to SNAP is not the way to go. The Committee 
        should focus on writing a farm bill that creates economic 
        opportunity and improves access to healthy, affordable food for 
        all Americans.

    (2) How can you even consider cutting vital funds to feed hungry 
        people in this country before you cut farm subsidies to the 
        mega-farms that produce unneeded amounts of commodity crops 
        that no one can eat? Where are your priorities?

    You have the power to make the farm bill something that will give 
food-producing small farmers the means to start new farms and thrive on 
their existing farms. Through the farm bill, you can also provide safe, 
healthy, high quality produce to all Americans. Stop subsidizing 
multinational megacorporations and start feeding our nation healthy, 
safe, high-quality, nutritious and affordable food.
    Do the right thing here. Stop allowing the Farm Lobby and the 
Monsantos, ADMs, Cargills and Dean Foods of the world hijack the farm 
bill yet again.
                                 ______
                                 
                        Comment of Jeff Schwartz
    Date Submitted: Saturday, May 19, 2012, 9:29 p.m.
    City, State: West Harwich, MA
    Occupation: Solar Installer
    Comment: Please support local, organic, sustainable agriculture, 
Not agribusiness. We need a farm bill that will protect small family 
farms and take us away from non-sustainable agribusiness approaches.
                                 ______
                                 
                       Comment of Julie Schwartz
    Date Submitted: Friday, May 18, 2012, 1:51 p.m.
    City, State: Chestnut Ridge, NY
    Occupation: Camp Director
    Comment: I am not a producer, but I depend on those who are, for 
most of my food needs. Most of the products available on grocery store 
shelves really shouldn't be eaten. Organic farming is good for the 
planet, good for people, the food is more nutrient-rich and, frankly, 
tastes better. Don't cut this funding.
                                 ______
                                 
                   Comment of Robbin Schwartzenhauer
    Date Submitted: Saturday, May 19, 2012, 6:29 a.m.
    City, State: Manzanita, OR
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Hello House Agriculture Committee,

    I am writing to inform you that I fully support the full 
endorsement of all provisions of the Local Foods, Farms and Jobs Act 
(H.R. 3286).
    I support fully funding conservation programs, such as the 
Conservation Stewardship Program.
    I support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236).
    I support maintaining the EQIP Organic Initiative.
    I think that producers using genetically modified varieties need to 
have their crops quarantined to prevent GMO pollution of non GMO crops 
through pollen.
    I support the labeling of all genetically modified producers and 
the labeling of where your produce came from.
    Thank you!
                                 ______
                                 
                     Comment of Tamsen Schwartzman
    Date Submitted: Saturday, May 19, 2012, 9:36 a.m.
    City, State: Brooklyn, NY
    Occupation: Museum Media Manager
    Comment: It is ever so important to support our local and organic 
farmers to be able to continue to provide safe and healthy food 
alternatives to those of the big agricultural businesses that persist 
in using pesticides, antibiotics, and GMOs to sustain mono crops. We 
must support local food systems that will continue to flourish even 
after oil prices rise, which they inevitably will.
    I most sincerely request:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Penny Schwarz
    Date Submitted: Friday, May 18, 2012, 1:17 p.m.
    City, State: Broken Arrow, OK
    Occupation: Disabled
    Comment: One of this country's greatest assets has Always been the 
individual farmer and the crops they grow! I was raised by and with 
hardworking farmers. I trust that what they produce is not only 
healthier for consumption, but also better for mother Earth and her 
future. She will provide all we need as long as we don't abuse and 
pollute her. I do not want to buy government controlled, chemically 
treated, altered or ``enhanced'' produce.
                                 ______
                                 
                   Comment of Patricia Schwarzlander
    Date Submitted: Friday, May 18, 2012, 2:13 p.m.
    City, State: Syracuse, NY
    Occupation: Clinical RN Specialist in Public Health
    Comment: I support local farms especially ones which grow food 
organically . . . I think large factory farms are giving us products 
which are detrimental to our health under horrendous conditions. They 
should be regulated in growing GMO foods, their use of tainted feed, 
water pollution, soil erosion, energy consumption, contamination of the 
land by the waste products (especially waste that produces methane gas 
which is a detrimental factor in climate change . . . ) animal/poultry 
cruelty, and they should not Not receive the huge subsidies which they 
currently get.
                                 ______
                                 
                      Comment of Raphael Schweizer
    Date Submitted: Saturday, May 19, 2012, 10:20 p.m.
    City, State: Bronx, NY
    Occupation: Retail
    Comment: Pass a farm bill that supports Small, Organic Farms. Not 
giant Corporations and Mega-Producers.
                                 ______
                                 
                       Comment of Shari Scofield
    Date Submitted: Friday, May 18, 2012, 1:37 p.m.
    City, State: Harrisonburg, VA
    Occupation: Higher Ed
    Comment: The Agribusiness food production model is not sustainable, 
nor is it providing the level of nutrition I would like for my family 
and community. I feel personally threatened by GMO's creeping into the 
food chain. I will vote according to my beliefs about what is best for 
the land, the country and my community. I will also lobby others and 
continue to educate myself and others.
                                 ______
                                 
                        Comment of Barbara Scott
    Date Submitted: Friday, May 18, 2012, 4:04 p.m.
    City, State: La Veta, CO
    Occupation: Retired Educator
    Comment: The job of the Agriculture Committee and Dept. of 
Agriculture is to practice wise stewardship of our country's 
agricultural lands and practices in order to benefit both consumers and 
growers.
                                 ______
                                 
                        Comment of Cameron Scott
    Date Submitted: Wednesday, May 02, 2012, 11:04 p.m.
    City, State: Radford, VA
    Occupation: Student
    Comment: As a student (and a person with Asperser's Syndrome), I 
know the vast importance of decent nutrition on a daily basis to excel 
in schoolwork. Establishing a stronger farm bill will enable more 
produce to reach all Americans in need and also enable them to obtain 
the physical strength they need to pull themselves together, advance in 
life, and become better contributors to society. Consider the future of 
America; consider the nation's future state for your children and 
grandchildren.
                                 ______
                                 
                          Comment of D. Scott
    Date Submitted: Saturday, May 19, 2012, 4:53 p.m.
    City, State: Caliente, NV
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Please preserve funding for SNAP, TEFAP, CSFP programs.
    Thanks,

Deed.
                                 ______
                                 
                         Comment of Emily Scott
    Date Submitted: Saturday, May 19, 2012, 7:36 p.m.
    City, State: Leawood, KS
    Occupation: Semi-Retired
    Comment: I am in the 6th district, but it isn't listed. I want 
honest farming in the hands of real farmers, not corporate slaves. I 
want organic farming. No more games!
                                 ______
                                 
                          Comment of K. Scott
    Date Submitted: Friday, May 18, 2012, 1:07 p.m.
    City, State: Bel Air, MD
    Occupation: Mother
    Comment: As a mother of three, the health, safety, and nutritive 
value of the foods I feed to my family are of the utmost importance to 
me. I go to great expense to source locally grown organic foods and 
grass-fed meats from local farms for my family whenever possible. I am 
greatly concerned about the nation's reliance on overly processed foods 
created with heavily subsidized corn and soy products. The health of 
our citizens is clearly suffering, due in large part to the extremely 
unhealthy food options abounding on every corner. Even the public 
schools fill our students with ``meals'' that are heavily processed and 
loaded with unhealthy additives. Revising the farm bill in 2012 is a 
great opportunity for us to address some of these issues. As your 
constituent, I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you for your consideration of these matters.
                                 ______
                                 
                        Comment of Sherri Scott
    Date Submitted: Sunday, May 20, 2012, 11:04 a.m.
    City, State: Chico, CA
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: Please think hard about the variety and needs of all of 
your constituents here in the 2nd district. Yes there is big ag around 
here and they are doing fine. Please support the small farmers who feed 
our community directly and are stewards of the land and take care of 
the soil as if it were food itself. Please support the farmers' markets 
and all of the co-ops and grocery stores and community kitchens that 
offer a market for these local growers. Please support community 
gardens and garden and nutrition education so that everyone can have 
access to and information on healthy food. This is all stuff that is 
happening here in you community right now and is making such an impact. 
Imagine if it were supported by you and on the national level.
    I also would like you to support Real food. It is time to put up a 
wall towards corporate interests and it is time to think of the people. 
Pink Slime? High Fructose Corn Syrup? GMO Food? These are the things 
that are killing us and causing outrageous health problems and health 
costs. Don't allow them. Just because you can put them in your mouth 
should not mean that they can be called food! Not only am I a farmer 
but I am a garden teacher at preschool and elementary school and kids 
love and need vegetables and whole foods; they know it but often time 
only have access to McD's. Please ensure that this Food and farm bill 
takes into account the interests of the Real people that live here in 
your community, not corporations.
    If you ever want to hear the stories and successes happening here 
in Chico with such groups as GRUB (Growing Resourcefully Uniting 
Bellies), Cultivating Communities, Let's Move Chico, CARD (Chico Area 
Rec. District has garden and nutrition programs) and others please 
contact me @ [Redacted]. If you want to hear the struggles that many of 
these groups have encountered trying to assist the schools to feed our 
kids real food, maybe even locally produced food, then I can direct you 
to those folks. I gave up because the system is too entrenched in 
politics and corporation stronghold and again not in our kids or our 
community's interest.
    I keep trying to end this letter, but there is so much you can do 
to change this for the good of the people. And it is so frustrating 
because no matter what I say or what we could show you, you are still 
going to vote along the party line.
    What's the use in trying.
                                 ______
                                 
                        Comment of James Scotto
    Date Submitted: Saturday, May 19, 2012, 4:42 p.m.
    City, State: New York, NY
    Occupation: Teacher
    Comment: As it is, our system of farming is beyond horrific. I 
specifically refer to the treatment of animals, but there are all kinds 
of other horrors (GMOs, pesticides, pollution, destruction of 
environment, neglected workers . . . Did I mention how truly 
unbelievable it is that animals are mass produced and tortured, as if 
we are no more evolved than barbarians?) Now I hear that there will be 
cuts to funding for nutrition, conservation and support for organic and 
sustainable agriculture--mind boggling.
                                 ______
                                 
                       Comment of David Scrimenti
    Date Submitted: Friday, May 18, 2012, 2:07 p.m.
    City, State: Ansonia, CT
    Occupation: Musician
    Comment: Some of the many things we need are: mandatory labeling of 
all GMO foods; decentralized food production for nutritional benefits, 
food safety, and national security; fewer regulations for small farms; 
more investment in organic farming; breaking up of giant agribusinesses 
that have a virtual monopoly on our food production; and reduction, or 
elimination of subsidies to large farms that don't need any taxpayer 
money.
                                 ______
                                 
             Joint Comment of Marla L. & Morris D. Scripter
    Date Submitted: Saturday, May 19, 2012, 10:37 p.m.
    City, State: Granada Hills, CA
    Comment: The poor quality of our food, the toxicity, the imbalance 
of grains in lieu of vegetables and fruit, the pesticides have created 
a demand for medical that is totally unnecessary. The vast majority of 
our medical care needs are driven by poor nutrition. It is time to 
focus on healthy food and environment and Not legislating medical 
bureaucracy.
                                 ______
                                 
                         Comment of T. Scudder
    Date Submitted: Saturday, May 19, 2012, 12:52 a.m.
    City, State: Springfield, OR
    Occupation: Student
    Comment:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I also am against any company controlling all of the food in this 
country and find it unconstitutional for Monsanto in particular to be 
allowed to manipulate the system to best suit their interest. Please 
change these laws and make them label their food. I find it disturbing 
that they are bullying their way through these practices. This must be 
changed and outlawed immediately!
                                 ______
                                 
                       Comment of Jessica Seales
    Date Submitted: Thursday, May 10, 2012, 1:31 p.m.
    City, State: Atlanta, GA
    Occupation: Special Events Production
    Comment: Good Afternoon Congressman Lewis,

    Please do not cut food stamps for working families in need. 
Billions of families are still in need. I trust you to stand by the 
working people of Georgia and this nation.
            Best,

Jessica Seales.
                                 ______
                                 
                       Comments of Newell Searle
    Date Submitted: Thursday, March 22, 2012, 4:38 p.m.
    City, State: Maplewood, MN
    Occupation: Food Bank Executive
    Comment:
    Comment: The Supplemental Nutrition Assistance Program (SNAP) is 
essential to maintaining the fabric of our rural communities. The 
following three stories from our SNAP outreach workers illustrate the 
kind of determined people--in hard circumstances--who need SNAP:
    Three SNAP Stories from Minnesota

    (1) I met a client today whose story truly touched me. He was laid 
        off in 2010 and has been homeless for 2 years. His biggest 
        concern was food. He slept at the bus shelter because he 
        thought that no one would judge him and just think that he was 
        trying to catch a bus from one place to another. He didn't know 
        he could apply for food support, cash assistance, or 
        healthcare. Poverty was new to him. He had worked his whole 
        life. He told me that to him food was the most important thing 
        to keep him going every day. He walks everywhere and without 
        food he didn't have the energy to keep looking for jobs and 
        keep living . . . He told me also told me that there was a time 
        in his life where he was so hungry that drinking water helped 
        satisfy his hunger pains. He was unaware of free hot community 
        meals, homeless shelters, or even public assistance. He has 
        been coming to the workforce center for 2 years to look and 
        apply for jobs . . . He had no income and no money in a bank 
        account. His only assets were a bag of clothes he had stored 
        somewhere for safety. After I assisted him with the SNAP 
        application, I printed off additional resources to homeless 
        shelters, community hot meals, and local food shelves. He was 
        so thankful and had a few words of encouragement. He told me 
        that last night he prayed to God that God would send someone 
        his way to help him with all the struggles he's encountered and 
        today he met me. It is stories and people like him that help me 
        do my job to the best of my ability and continue to do my job 
        day in and day out.

    (2) I first met Bob when he was volunteering at the ECHO Food 
        Shelf. During slow times at times at the food shelf there are 
        opportunities to visit with volunteers. Bob sat at my desk and 
        wanted to know more about what I do. In the process of our 
        conversation I found out that Bob was not on Food Support and 
        definitely qualified. Bob had heard that if you have ever been 
        in trouble with the law, you would not qualify for any 
        benefits. Bob was a volunteer at ECHO through the Sentence to 
        Serve program. (STS) He had never even thought of trying to 
        apply because of what he had heard from others. I read him the 
        regulations. He had a drug felony charge but that doesn't 
        eliminate him from benefits. We filled out the application and 
        Bob was approved for the maximum benefit of $200. By the way, 
        Bob is a Vietnam War Veteran and a senior citizen who lives on 
        $769 per month. As he volunteered at the Food Shelf he would 
        also get his food there from time to time. Now he eats his noon 
        meal at the Salvation Army because he enjoys the community 
        there and not because it would be his main meal of the day. By 
        the way, he's Bob the Builder because any repairs or building 
        the food shelf needs, Bob is there to take care of it for them.

    (3) Having an office at the Food Shelf allows me the privilege of 
        getting to know the volunteers. Many of them are clients of the 
        food shelf and of mine. Dave stopped by my desk one day with a 
        question about his food support. The question was a simple fix 
        but the story he shared was very moving for me. He talked about 
        the courage it took for him to even walk through the doors of 
        the food shelf. ``I'm a self-sufficient man,'' he says. ``I 
        don't take freebees from anyone. I earn my own way.'' He shared 
        his thoughts on what he used to think of people who came to the 
        food shelf or are `on the system'.'' Low life's, lazy, 
        scrounges, drunks, druggies, were all some of the names he used 
        to use to describe people in need. That day he told me how his 
        experience that first day left him feeling humble and grateful. 
        He and his wife were broke. All savings was gone and his 
        business was non-existent. He commented on how the volunteers 
        treated him respect. They would listen to his story as they 
        walked through the shelf. He talked about how cheery everyone 
        was and how welcome they made him feel. This former business 
        owner slumped in the chair and wiped tears from his eyes as he 
        shared his thoughts. He told me how, now that he volunteers for 
        the food shelf, his wife has commented on how different he acts 
        when he comes home at night. She told him that she notices that 
        he's smiling, he doesn't talk negative about others, he 
        volunteers to help others in the community, and she's happy to 
        have him around the house again. He talked about his 
        experiences in working with clients. He now understands the 
        life of those in need. I saw a quote the other day that said: 
        ``To work for justice is to work for dignity. Dignity is a 
        person's ability to give, in whatever way possible for them.''
    Date Submitted: Monday, May 07, 2012, 12:32 p.m.
    Comment: Cuts to SNAP are counter-productive. SNAP cuts are a job 
killer.
    Here's why: Each dollar of SNAP purchases generates $1.73 in 
economic activity. The funds pass through communities and support jobs 
in groceries and Main Street.
    An example:

          Blue Earth City, MN: average living wage for one adult: 
        $23,000.
          2010 SNAP payments = $4,715,700.
          2010 SNAP impact (x $1.73) = $8,158,200.
          SNAP and its impact supports 354 living wage jobs.

    Proposed cuts to SNAP (4%) will reduce SNAP payments, reduce the 
economic impact and result in the loss of 14 current living wage jobs.
    SNAP is not a cost, SNAP prevents people from becoming poorer and 
thus, prevents communities from becoming poorer. It sustains jobs and 
communities along with the people who need temporary assistance meeting 
their basic needs.
    Cutting SNAP will undermine existing jobs when the economy needs to 
grow them, not cut them.
    In the State of Minnesota, there are more than 32,000 living wage 
jobs that can be traced to the impact of SNAP. The proposed cuts would 
eliminate more than 12,000 current jobs in Minnesota.
                                 ______
                                 
                         Comment of Cindy Sears
    Date Submitted: Friday, May 18, 2012, 12:10 p.m.
    City, State: Lawrence, KS
    Occupation: Retired Teacher
    Comment: I buy only organic produce and dairy products. My daughter 
wishes that she could afford to do the same for my grandchildren. 
Please work to help producers provide chemical free real food for ALL 
the families of America.
                                 ______
                                 
                        Comment of Anton Seaton
    Date Submitted: Saturday, May 19, 2012, 3:06 p.m.
    City, State: Castro Valley, CA
    Occupation: Student
    Comment: Big agriculture has hurt our agricultural supply and farm 
land. This has further led to an increase in cancer and chronic 
diseases attributed to chemical introduction as pesticides and hormones 
growth. Big agriculture favors loose of regulation to keep this going 
but we as a government and citizens need to put this to an end. I 
welcome your support.
                                 ______
                                 
                        Comment of Linda Seaver
    Date Submitted: Friday, May 18, 2012, 5:15 p.m.
    City, State: Rhinebeck, NY
    Occupation: Office Manager
    Comment: My children and grandchildren trust me to feed them 
healthy food. I want to be able to go grocery shopping and not worry 
about pesticides, herbicides, fungicides, antibiotics, and genetically 
modified foods being in or on everything in the store! These chemicals 
are designed to kill and to interfere with reproduction. Why am I being 
forced to buy them? Why are my law makers supporting the companies that 
are profiting from damaging the health of my children and even future 
generations of children? It makes me too angry to articulate.
                                 ______
                                 
                       Comment of Lance Secretan
    Date Submitted: Friday, May 18, 2012, 1:27 p.m.
    City, State: Frisco, CO
    Occupation: Author
    Comment: Let's get current with healthy thinking, which will 
dramatically improve individual wellness and slash the nation's 
healthcare bill. It's time to end lobbyist-induced practices all the 
way through the food chain from producer, to manufacturer/processor to 
consumer.
                                 ______
                                 
                       Comment of Sarah Sedgwick
    Date Submitted: Friday, May 18, 2012, 8:20 p.m.
    City, State: San Diego, CA
    Occupation: Laid Off
    Comment: What is happening to this country and the food supply, it 
is a disgrace, and I am well-read on the issues at hand, Monsanto and 
all. It is all greed and nothing for the good of people or thought of 
future generation. Only the people of substance are standing up for the 
people, the government is supposed to be protecting us but something 
has gone terrible bad in this agricultural molded environment of greed 
and special interests. I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Karl Seidel
    Date Submitted: Saturday, May 19, 2012, 10:31 a.m.
    City, State: Oskaloosa, IA
    Occupation: Marketing Manager
    Comment: Labeling, so I know what I'm consuming, seems to be my 
basic right as a consumer. Yet there's no mandate so I can't know 
whether my food is grown organically or with GMO. Traceability of food 
origin is a standard business needs to work towards. Are you for or 
against this?
                                 ______
                                 
                        Comment of Michelle Seim
    Date Submitted: Friday, May 18, 2012, 8:11 p.m.
    City, State: Seattle, WA
    Occupation: Software Developer
    Comment: Please don't cut $4 million from organic research funding. 
Please don't cut in half funding to support Beginning Farmers. Please 
support organic food and organic farming. Thanks.
                                 ______
                                 
                       Comment of Breck Seiniger
    Date Submitted: Friday, May 18, 2012, 2:12 p.m.
    City, State: Boise, ID
    Occupation: Attorney
    Comment: Regardless of one's position on ``Obama Care,'' it is 
becoming increasingly clear that the food that American's are eating 
are the primary cause of runaway health costs. If you doubt this, watch 
Forks Over Knives (available via streaming on Netflix). We cannot 
control health costs without controlling the quality of the American 
diet. Please consider this in reviewing all legislation.
                                 ______
                                 
                         Comment of Debra Seiz
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Wenonah, NJ
    Occupation: X-Ray Technologist
    Comment: I Support any farm bill requiring Labeling on GMO's, 
Stopping bastards like Monsanto Abusing the U.S. justice system by 
filing Frivolous Lawsuits against organic farmers and promoting Organic 
Farming.
    The public has the right to know and to choose from natural foods 
and GMO's saturated with Poisons such as Round-up that is also 
decimating the Bee Population.
    I completely Resent congress' complicity in Big Agribusiness' Bull 
Crap.
                                 ______
                                 
                          Comment of Joy Selby
    Date Submitted: Friday, May 18, 2012, 2:17 p.m.
    City, State: Pasadena, CA
    Occupation: Retired Teacher
    Comment: I would like food produced without pesticides hormones 
artificial fertilizers or additives or GMO's. So that I can go to the 
grocery store and buy groceries as my grandparents did. I believe the 
additives in food both in the field and in the box are killing us.
                                 ______
                                 
                      Comment of Stefanie Sellars
    Date Submitted: Friday, May 18, 2012, 1:55 p.m.
    City, State: Simi Valley, CA
    Occupation: Composer
    Comment: I want Organic produce. You know, the kind we ate when we 
were kids. They called it food then, not organic food. Now 70% of what 
is available at the grocery store is GMO--Genetically Modified 
Organisms. They do a number on my colon and I'm allergic to the 
pesticides sprayed on the conventionally grown produce. So, 
consequently, I have taken it upon myself to grow much of my own 
produce as well as shopping organic where I can get it and organic at 
farmer's markets. I can't always get everything I need and conversely, 
when I have surplus I share and can it later. I know I am not alone as 
I have many friends and family that trade produce with me and well 
there is a huge market for organically grown produce.
    I also cannot tell in stores in this country what products contain 
GMO produce. I just learned that all Kashi products are made with 
GMO's. Some stores have removed it altogether and put a notice to that 
effect in it's place and I am grateful for this policy. I find this 
whole unlabeled GMO food situation to be ridiculous and frankly, un-
American. I can go into any grocery store in Europe and read the labels 
and they will tell me whether or not the products are produced with 
GMOs. Their governments look out for their people's food supply. But 
here in the ``good old USA'' Monsanto and all the commercial seed 
companies rules the country, they have bought the government through 
lobbyists so that we the people are Not Allowed to know what is our 
food. A nation of over 300,000,000 people are not allowed to know what 
is in their food? Why? Because Monsanto funded science says it is OK? 
That is like the fox's lawyer saying he will guard the henhouse and 
won't interfere with the hens. You know we can't trust fox!
    It is time to serve the people of what is left of this Nation and 
stop lining the pockets of congress. Just label our food. Disclose 
whether or not there are GMOs in it. I'm tired of playing russian 
roulette with hives, diarrhea and a burning colon. I'm so tired of it 
in fact that I grow most of my own food.
    It takes a lot of time and energy each day for me to prepare, 
mulch, manure, grow, fertilize, tend, remove bugs manually, trim, pick 
harvest, compost and roto-till my garden, not to mention search out 
organic Non-GMO seeds. I understand the work of our nation's organic 
farmers, I spend part of each of my days doing it, because I am 
committed to being healthy by eating healthy organic food. But it is 
mind boggling to me that even in communist China GMO's are labeled, in 
Russia and Canada they are labeled all over Europe you know what you 
are putting into your body, but here? No! Monsanto et al., wants to 
poison us and keep us from knowing what we are eating. (not to mention 
GMO genetic pollen drift that no one can control) Please, support 
Organic farming and labeling of GMOs. If this happens, then people will 
naturally buy non GMO and there will be a larger market for organic 
traditionally grown produce. I for one am willing to pay more for 
healthy organic food, heck,
    I grow it myself!
                                 ______
                                 
                       Comment of Gabrielle Serra
    Date Submitted: Sunday, May 20, 2012, 6:59 p.m.
    City, State: Washington, D.C.
    Occupation: Public Health Program Administration
    Comment: As the Committee works to develop the 2012 Farm Bill 
package, the Public Health Institute (PHI) strongly urges Chairman 
Lucas, Ranking Member Petersen, and members of the Committee to develop 
a farm bill that will protect against hunger, improve nutrition and 
health outcomes among vulnerable populations, and strengthen community-
based initiatives that link farmers with consumers and increase access 
to healthy foods.
    Together, hunger and obesity represent two of the greatest and 
costliest health challenges of our time. Nearly 50 million people live 
in households that lack adequate resources to put healthy food on the 
table for their family. Further, approximately \1/3\ of all children 
are overweight or obese. While 7 in 10 of the leading causes of death 
in this country are associated with preventable diet-related diseases, 
poor diets result in more immediate consequences as well, including 
negative effects on children's ability to learn, the productivity of 
our workforce, and sky-rocketing health care costs.
    The farm bill nutrition programs are fundamental to protecting 
public health and improving nutrition among the most vulnerable 
individuals in our country. Cuts to benefits and services, including 
nutrition education, would increase economic hardship and seriously 
compromise the food security and nutritional well-being of the 46 
million individuals, including children, the hungry, and the elderly 
who rely on these program to put food on the table. With record high 
rates of overweight and obesity, along with skyrocketing health care 
costs, now is not the time to cut programs that have proven to be 
effective in improving nutrition and reducing risk of diet-related 
chronic disease.
    Sufficient resources, knowledge, skills, and access to healthy, 
safe, affordable foods can help to prevent both the short and long-term 
consequences of poor nutrition. While PHI recognizes that the nation 
faces significant fiscal challenges that require sobering budgetary 
decisions, we urge Chairman Lucas and the Committee to take a balanced 
approach to finding savings for deficit reduction in this farm bill 
legislation that will protect vulnerable populations from further 
economic hardship.
    To this end, in April of this year, PHI joined with 93 other 
national and regional organizations to put forward balanced 
recommendations to protect and support the farm bill nutrition 
programs. PHI is pleased to have the opportunity to provide the 
following recommendations for the 2012 farm bill:

  <bullet> Protect against hunger by ensuring adequate resources for 
        Federal nutrition assistance programs and emergency food 
        providers.

  <bullet> Protect eligibility, benefit levels, and program integrity 
        of the Supplemental Nutrition Assistance Program (SNAP) to 
        ensure that low-income Americans have the resources necessary 
        to afford a nutritious diet and prevent hunger.

  <bullet> Ensure adequate supply of nutritious commodities for 
        distribution through emergency food providers by increasing 
        mandatory commodities provided by The Emergency Food Assistance 
        Program (TEFAP) and maintaining authorized funding levels for 
        TEFAP storage and distribution.

  <bullet> Maintain Commodity Supplemental Food Program (CSFP) 
        authorization at current levels and focus program on improving 
        nutrition for low-income seniors by transitioning CSFP to a 
        seniors only program, with grandfathered protection for women, 
        infants, and children currently enrolled.

  <bullet> Provide a tax credit to farmers to incentivize earlier 
        donation of high quality produce to food banks for distribution 
        through the charitable food system.

  <bullet> mprove nutrition and health outcomes for vulnerable 
        populations by increasing consumption of fruits, vegetables and 
        other healthy foods.

  <bullet> Maintain current funding for SNAP Nutrition Education to 
        help low-income Americans make healthy choices on a limited 
        budget, reduce their risk of chronic disease and obesity, and 
        optimize the SNAP benefit.

  <bullet> Maintain current funding for the Fresh Fruit and Vegetable 
        Program and protect the integrity of the program to ensure that 
        low-income elementary students have a fresh fruit or vegetable 
        snack at school every day.

  <bullet> Provide grants for SNAP incentive programs to increase the 
        purchase and consumption of fruits and vegetables at farmers 
        markets and other healthy food retailers.

  <bullet> Strengthen SNAP national vendor standards to improve 
        availability of healthy foods while balancing adequate access 
        to retailer outlets.

  <bullet> Maintain funding for the National Institute of Food and 
        Agriculture for vital research on nutrition, hunger and food 
        security, and obesity prevention.

  <bullet> Strengthen community-based nutrition initiatives that link 
        farmers with consumers and increase access to healthy food to 
        reduce food insecurity, improve nutrition, and promote self-
        reliance, economic development and job creation.

  <bullet> Ensure funding for existing farmers' market, community food, 
        and agriculture marketing and food hub development programs to 
        improve outcomes and efficiency, meet demand, and maximize 
        impact.

  <bullet> Increase mandatory funding for Community Food Projects to 
        improve nutrition and food security among low-income 
        individuals and communities.

  <bullet> Provide SNAP EBT point of sale devices to farmers markets, 
        farm stands, green carts and other non-traditional healthy food 
        retailers to improve access and increase consumption of fruits 
        and vegetables.

    Thank you for the opportunity to submit these comments and 
recommendations for the 2012 Farm Bill. PHI looks forward to 
opportunities to work with you to protect and support the farm bill 
nutrition programs.
            Respectfully,

Gabrielle Serra,
Public Health Institute
[Redacted],
Washington, D.C.,
[Redacted].
                                 ______
                                 
                       Comment of Susan Serveson
    Date Submitted: Sunday, May 20, 2012, 8:22 a.m.
    City, State: San Diego, CA
    Occupation: Retired
    Comment: Please make sure the farm bill includes taking care of 
smaller independent farmers, organic farmers and all local farmers so 
that our foods are healthier. Stop subsidies to the corporate farms. 
Farms should produce healthy edible food and rotate land to promote 
good food growth. I support and ask you to support the Slow Food 
movement in the USA and to listen to their suggestions. We need better 
food for better life and health of the American people. You represent 
the people so I truly hope you take all suggestions as serious when 
they come from Slow Foods organization and the people who support them, 
such as myself. The effort and supportive vote from you will make a 
tremendous difference.
                                 ______
                                 
                       Comment of Robert Sessions
    Date Submitted: Friday, May 18, 2012, 11:56 a.m.
    City, State: Iowa City, IA
    Occupation: Professor
    Comment: I urge you to include monies for programs supporting 
organic farming and small farms, conservation and food support for the 
poor. On the other hand I urge you to end subsidies to corn and bean 
farmers--the markets are rich now and cutting these subsidies alone 
would allow you to reduce dramatically the cost of the farm bill.
                                 ______
                                 
                       Comment of Sharon Sessions
    Date Submitted: Friday, May 18, 2012, 11:15 a.m.
    City, State: Socorro, NM
    Occupation: Professor of Physics
    Comment: Please:

  <bullet> Support small family farms.

  <bullet> Reduce or eliminate subsidies for ethanol and corn intended 
        for processing into high fructose corn syrup.

  <bullet> Support organic and sustainable farm practices.

    Thank you for your consideration.
                                 ______
                                 
                         Comment of Savita Seth
    Date Submitted: Friday, May 18, 2012, 1:10 p.m.
    City, State: Potomac, MD
    Occupation: Social Worker (Retired)
    Comment: We owe it to ourselves, our children and grandchildren to 
live in a clean or at the very least less polluted environment. Putting 
money where our mouth is will eventually save money in health care 
costs!
                                 ______
                                 
                         Comment of Ankur Sethi
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: Herndon, VA
    Occupation: Engineer
    Comment: wish to voice my concern over farm subsidies which benefit 
larger farms. I believe farms can be used to employ more individuals 
and local farms without support from mass agricultural companies like 
Monsanto is the way of the future. We need to consider the long term 
health of farms over short term profit mongering. Long term we should 
have smaller farms and not mega-farms.
                                 ______
                                 
                         Comment of Mike Sexton
    Date Submitted: Friday, May 18, 2012, 12:31 p.m.
    City, State: Junction City, KS
    Comment: It's time that farmers get rewarded for keeping food more 
natural and not designed like it's coming off a conveyor belt or 
something. I've noticed over the years that even fresh produce has 
gotten bigger but with much less flavor and less healthier and the 
practices of agribusiness are completely destroying the land, our own 
health and the environment in general because they're treating 
agriculture less like real food and more about how much they can get 
out of their growers.
                                 ______
                                 
                      Comment of Helen Seyferlich
    Date Submitted: Friday, May 18, 2012, 3:59 p.m.
    City, State: Elma, WA
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: Support for the small farmer provides important 
information to the farmer. The Farmer provides local fresh food and a 
more sustainable local economy.
                                 ______
                                 
                         Comment of Anne Shaber
    Date Submitted: Monday, May 07, 2012, 4:00 p.m.
    City, State: West Milton, OH
    Occupation: Homemaker
    Comment: Please stop subsidizing factory farms and mega farms. 
Subsidizing should be for small and or struggling farms that working 
hard to provide high quality nutritious food.
                                 ______
                                 
                         Comment of Joel Shaber
    Date Submitted: Saturday, May 19, 2012, 9:24 a.m.
    City, State: Boise, ID
    Occupation: Waiter
    Comment: We must implement sustainable, organic farming methods if 
we expect to become a healthy population. It is obvious that the 
factory farming of animals and industrial agricultural methods, which 
rely so heavily upon the petroleum industry, cannot work for the long 
haul. We are killing ourselves and destroying our children's future 
with our current course. Please implement the organic farm bill, and 
end subsidies for commodity crops. It is the only right thing to do.
                                 ______
                                 
                         Comment of Conrad Shad
    Date Submitted: Friday, May 18, 2012, 10:18 p.m.
    City, State: Port Orange, FL
    Occupation: Retired
    Comment: I don't trust anyone in government to tell the truth. I 
don't believe they should be on their own type of health insurance as 
the rest of us. What's good for us should be good for them. President 
included.
                                 ______
                                 
                       Comment of William Shaffer
    Date Submitted: Tuesday, May 01, 2012, 11:15 a.m.
    City, State: New Smyrna Beach, FL
    Occupation: Retired
    Comment: Anyone with an iota of compassion would pass a farm bill 
that fed those who are hungry, And would not complicate the bill with 
proposals that have nothing to do with feeding the hungry.
                                 ______
                                 
                       Comment of Kendra Shamley
    Date Submitted: Friday, May 18, 2012, 11:45 a.m.
    City, State: Laramie, WY
    Occupation: Cook
    Comment: I believe that my rights entitle me to choose what food I 
can or cannot eat, without the government telling me if it's safe or 
not. Since most officials in Washington, D.C., are not around farms, 
livestock or raw foods on a regular basis how then can they make an 
accurate decision about their place in the food system, let along the 
``hazard'' to the public.
                                 ______
                                 
                        Comment of Linda Shanks
    Date Submitted: Friday, May 18, 2012, 10:30 p.m.
    City, State: Bloomington, IN
    Occupation: Retired
    Comment: SNAP is the cornerstone of the nutrition safety net, 
providing 46 million low-income people with monthly benefits that are 
timely, targeted, and temporary.
    SNAP proved to be one of the most responsive safety net programs, 
growing quickly to meet rising need resulting from high unemployment in 
the recession. 84% of benefits go to households with a child, senior, 
or disabled person, and new participants spend an average of 10 months 
on the program. Funding cuts and harmful policy changes would require 
reductions in benefits or eligibility and impede SNAP's responsiveness 
when our economy falters or unemployment rises.
    The FY 2013 Agriculture Appropriations bill should:

  <bullet> Oppose funding cuts and harmful policy proposals to SNAP, 
        including efforts to block grant, cap, or cut funding;

  <bullet> impose restrictive work requirements; or

  <bullet> otherwise reduce benefits or restrict participation.

    The 2012 Farm Bill should:

  <bullet> Maintain funding to support current eligibility and benefit 
        levels and oppose harmful policy changes.
                                 ______
                                 
                        Comment of Sara Shapiro
    Date Submitted: Friday, May 18, 2012, 9:12 p.m.
    City, State: Chicago, IL
    Occupation: Social Worker
    Comment: I work for a nonprofit organization and many of our 
clients cannot afford ``good'' food free of pesticides and genetic 
engineering. I fully support anything that will change food production 
to be more simplified and free of GMOs.
                                 ______
                                 
                        Comment of Cynthia Sharp
    Date Submitted: Friday, April 27, 2012, 10:19 p.m.
    City, State: Huntington Beach, CA
    Occupation: Surgical Nurse (Disabled)
    Comment: I feel that it is vitally important to make sure, there is 
not one single hungry American Person in our Country! If we can help 
all these other Countries ``By God'' we should never ever see a hungry 
person in the United States Of America!
            Sincerely,

Cynthia Sharp.
                                 ______
                                 
                         Comment of Dora Sharpe
    Date Submitted: Friday, May 18, 2012, 12:54 p.m.
    City, State: Naples, FL
    Occupation: Consultant
    Comment: Our food system is out of control. It is embarrassing and 
completely out of touch with nature. Money and greed control our food 
system and it will be killing our children.
                                 ______
                                 
                       Comment of Michael Sharpe
    Date Submitted: Thursday, May 17, 2012, 3:12 p.m.
    City, State: Eagle, AK
    Occupation: Tribal Workforce Development Specialist for Tanana 
Chiefs Conference, Alaska
    Comment: To get to the point, the bottom line is ``Farmers Feed 
Us''. (Could be taken as ``Farmers Feed [the] U.S.'' also . . . ) * 
Unless we live on meat 24/7 with no other source of nutrition, 
everything else that ``we'' as people consume, comes from fruits or 
vegetables. Even our starchy, artificial, over-processed, commercial 
boxed and canned foods completely devoid of nutrition in some cases, is 
full of products (and byproducts) made/derived from vegetables and 
fruit.
---------------------------------------------------------------------------
    * *If that phrase get's used I would like some credit.
---------------------------------------------------------------------------
    Nearly every soft drink contains corn syrup. That syrup was 
provided by a corn farmer, who often does not get completely 
compensated for his work or is squelched to smithereens by a farm bill 
that needs revision. Even more-so than ever, people are turning to 
vegetarian and vegan diets, organic diets or just eating more vegetable 
and fruits. Even people who depend on soy diets are dependent on soy 
farmers being able to provide them with them with soy that is grown 
properly. Squelching the farm industry ``forces'' farmers to sacrifice 
quality over quantity at some point or another. Whether it is not being 
able to afford a better quality fertilizer that is more beneficial for 
the consumer on a number of levels, or being able to put as much care 
into the finished product or their land before and after a grow season. 
I have known several people who have worked on and even owned farms. 
They may not have admitted it, but it is truly a ``thankless'' job. The 
consumers depend on it, the farmer depends on it. When the taxes go 
higher on farm land and the grip gets tighter on the farmers 
nationwide, all you hear are sighs in the produce isle in the grocery 
store when the price of corn went up by 10-20%; or when any other fresh 
foods have as well.
    When you keep shortening the string, you cannot make ends meet; 
because the string is the string that holds the nation together. The 
``Farmers are Our string''. If ``we'' keep ``letting'' the grip get 
tighter on the farmers, we're all taking part in shortening our 
`string''. If we shorten the thing that holds our nation together, we 
fall apart. Our food supply is something that cannot be taken lightly. 
Supply and demand are unique. Demand for food will Always be there, but 
``supply'' will not. Don't let our supply be squelched nor squandered. 
Once we let it slip through the cracks, it's a lot harder to get it 
back rather than to just make the changes before hand. I don't feel 
like elaborating anymore. If I need to say more than this, it defeats 
what I have already said and the purpose behind it. Please consider 
this. Take the ``nuggets'' of truth and wisdom out of this rather than 
writing it ``all'' off as rubble. I don't want to live in a country 
without affordable and Good fruits and vegetables. ``Don't bite the 
hand that feeds, and don't let it get bit either. Hold the hand that 
feeds, and see it through the harvest.'' Only then can we All benefit. 
Revise and Fix the Farm Bill. This is the ``Bottom Line''.

Michael Sharpe,
Eagle, Alaska.
                                 ______
                                 
                         Comment of Jean Sharry
    Date Submitted: Saturday, May 19, 2012, 6:32 p.m.
    City, State: Westwood, MA
    Occupation: Instructional Assistant--High School Special Ed
    Comment: It is crucial that we find a way to produce nutritious 
food that keeps us healthy and doesn't sacrifice the environment or our 
health. Support small organic farmers!
                                 ______
                                 
                        Comment of George Shaub
    Date Submitted: Friday, May 18, 2012, 10:35 p.m.
    City, State: Ewing, NJ
    Occupation: Insurance Claims Supervisor
    Comment: In reviewing farm policy, please keep in mind that 
subsidies given to large agricultural interests put the health of our 
citizens, our land, the soil and the environment at risk, as well as 
risking the livelihood of small farmers and farm workers. We need a 
better farm bill than those of the past, one that focuses policy on 
organic farming and sustainable agriculture.
    I support--and hope you do also--the full endorsement of all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286), the 
implementation of all provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236), maintaining the EQIP Organic Initiative, 
and fully funding conservation programs such as the Conservation 
Stewardship Program. Please ensure that enrollment in any new insurance 
subsidies are tied directly to compliance with conservation programs.
    Thank you.
                                 ______
                                 
                       Comment of Kimberly Shaub
    Date Submitted: Friday, May 18, 2012, 2:37 p.m.
    City, State: Ewing, NJ
    Occupation: Secretary
    Comment: Please produce a bill that actually helps the real family 
farmers in my state of New Jersey and the country. The Big Ag 
corporations do not need any more subsidies. The small & organic 
farmers deserve first consideration, always. They are the ones that 
actually feed us our Fresh food. Do Not give more money to producing 
genetically modified food. It is not needed.
                                 ______
                                 
                         Comment of Mel Shaver
    Date Submitted: Sunday, March 25, 2012, 9:19 p.m.
    City, State: Sterling, IL
    Occupation: Retired & Self-Employed
    Comment: Farmers do not pay taxes on the purchase of equipment or 
supplies--lus, their land tax is way below what the rest of us pay--the 
playing field is not level--let the farmer pay his fair share--then the 
state won't have a money problem . . .
    Please reply--I am very concerned.
Mel Shaver.

    Look at the web-site (EWG) This is farm aide . . .
    This has been going on for several years--we both know why . . .
    Help me please.
                                 ______
                                 
                         Comment of Justin Shaw
    Date Submitted: Friday, May 18, 2012, 5:43 p.m.
    City, State: Oneonta, NY
    Occupation: Lecturer
    Comment: Please support local producers and please modify farm bill 
so that organic, vegetable, fruit and any local dairy are not 
alternative but receive equal funding as giant corn and wheat CAFOs in 
the Midwest. Please ensure tough standards on GMOs and give rights to 
organic farmers fighting drift from toxic pesticide laden giant 
industrial farming operations.
                                 ______
                                 
                         Comment of Norman Shaw
    Date Submitted: Friday, May 18, 2012, 5:46 p.m.
    City, State: Ryde, CA
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock
    Size: 50-150 acres
    Comment: We need to look for a sustainable local food driven market 
where both farmers and consumers profit. Farmers would get a better 
price. Consumers would get Much better quality food. We should be 
supporting local little farmers instead of huge corporate and many 
times not even American owned mega-business's. The little guy is 
getting killed! Thank you.
                                 ______
                                 
                           Comment of S. Shaw
    Date Submitted: Friday, May 18, 2012, 6:57 p.m.
    City, State: Fargo, ND
    Occupation: Assembly
    Comment: I have soy allergies. Soybean oil being classified as a 
refined oil and not as a soy product has caused problems in my day-to-
day living. The belief that Only the protein causes a reaction could 
prove deadly. I react to soybean oil and to a very long list of 
products made from it (including things like vitamin E) that are Not 
required by the government to carry the Soy Allergen warning. I have 
the right to know what is in the products that I buy, but the current 
labeling of ingredients allows for soy products to be included in 
``natural flavors'' and the company does not have to disclose any use 
of soy due to ``following Federal regulations''. Most soy/soybean 
products are made from GMO Soy, And I believe it would be easier to 
track soy/soy products if GMO ingredients must be stated as such. Thank 
you for your time.
                                 ______
                                 
                        Comment of Shannon Shea
    Date Submitted: Sunday, May 20, 2012, 11:07 p.m.
    City, State: Rockville, MD
    Occupation: Communications Manager
    Comment: Developing a sustainable, local food system nationwide is 
essential to maintaining our country's health, economic prosperity, and 
environment. As a country, we must support the creation of this system 
through the farm bill, the most influential law on our overall food 
policy in this country. A fully functional food policy would provide 
healthy, good, sustainable food for all people, especially the most 
vulnerable like children and seniors, which is why we should continue 
to support the SNAP program. To support the development of this system, 
I fully endorse all provisions of the Local Foods, Farms and Jobs Act 
(H.R. 3286). To reduce our impact on the watersheds of this country, I 
also support fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs. To help develop and train the next generation of 
farmers, I support including the implementation of all provisions of 
the Beginning Farmer and Rancher Opportunity Act (H.R. 3236). Last, I 
support continuing to develop the organic sector by maintaining the 
EQIP Organic Initiative.
                                 ______
                                 
                     Comment of N. Lillian Shearer
    Date Submitted: Sunday, May 20, 2012, 10:10 a.m.
    City, State: Orange, VA
    Occupation: Chef
    Comment: I am currently located in the agriculture center of 
Virginia trying to source local food for my customers. I have a history 
in the farm and Ag communities. I was an Ag agent in Chautauqua County, 
N.Y. in the mid 1960's before the large subsidy system turned to profit 
for large leased farms in the Midwest. Small farms are going under 
daily, while the large land holders in the West are pocketing the 
money. The system needs to be rewritten so those small farms can become 
viable again and we all can eat safer more healthy local foods.
                                 ______
                                 
                        Comment of Lynn Shearon
    Date Submitted: Friday, May 18, 2012, 1:26 p.m.
    City, State: Richmond, KY
    Occupation: Retired Speech Pathologist
    Comment: We must do all that we can do to both support farmers and 
care for the environment. The almighty dollar should not be the only 
consideration or voice.
                                 ______
                                 
                       Comment of Harriet Sheeley
    Date Submitted: Wednesday, May 09, 2012, 11:06 p.m.
    City, State: Skokie, IL
    Occupation: Retired School Social Worker and Volunteer
    Comment: Protect feeding programs for older Americans. We do not 
have a strong lobby, and programs like SNAP, TEFAP and CSFP are 
important for the survival of many. Thank you.
                                 ______
                                 
   Submitted Statement by Ted Sheely, Upland and Pima Cotton, Onion, 
 Canning Tomato, Pistachio, Lettuce, and Seed Wheat Producer, Lemoore, 
                                   CA
    I am Ted Sheely from Lemoore, California. I operate a diversified 
farming operation along with my family raising upland and pima cotton, 
onions, canning tomatoes, pistachios, lettuce, and seed wheat. I want 
to thank Chairman Lucas and Ranking Member Peterson for seeking input 
from producers in their recent field hearings on the next farm bill. I 
also appreciate the opportunity to discuss the views of the California 
cotton industry with you here today. I would also like to offer a 
special thanks to Representative Jim Costa, my Congressman, for your 
work on this Committee and for your dedicated representation of 20th 
District of California. Representative Dennis Cardoza, I commend your 
service to California agriculture.
    Agriculture is one of the most important industries in California 
and the United States. California was the number one state in cash farm 
receipts in 2010, with $37.5 billion in revenue. The state accounted 
for 16 percent of national receipts for crops, and seven percent of the 
U.S. revenue for livestock and livestock products. Numerous businesses, 
financial institutions and individuals provide supplies, financing and 
services to the farmers and ranchers that produce our nation's food and 
fiber. As a result, an effective farm bill that supports production 
agriculture is also an effective jobs bill for the general economy.
    Overall, U.S. farmers are benefitting from relatively high 
commodity prices when compared to historical averages. However, it is 
important to remember that costs of essential inputs such as water, 
seed, fuel and fertilizer are also at historically high levels. As a 
result, profit margins remain thin, and higher prices have also brought 
increased volatility.
    As an irrigated producer in the San Joaquin Valley, I have first-
hand experience of the risks farmers face. The fluctuation of water 
supplies from 10% to 80% the last 3 years have added huge uncertainty 
and directly impacts my planting decisions and is a large component of 
any overall cost of production.
    As this Committee works to reauthorize farm bill legislation, I 
appreciate the challenges posed by the difficult budget climate in 
Congress and by those in Congress that continually question the need 
for farm programs. While agriculture is willing to make a proportionate 
contribution to deficit reduction, it is vitally important that budget 
constraints and farm program critics not be allowed to undermine the 
effectiveness of our farm safety net.
    With respect to production agriculture, I strongly encourage this 
Committee to take into consideration the diversity of production 
practices, cost structures and risk profiles. What works for my 
operation isn't going to be the same as farmers in Texas, North Dakota 
or Iowa. A one-size-fits-all farm program cannot address this 
diversity, and I hope that the eventual farm bill will offer a range of 
programs structured to address the needs of the different con1modities 
and production regions.
    I also urge the Committee to complete the farm bill this year--in 
advance of the expiration of the current legislation. We need some 
certainty regarding farm programs as we look at the long-term 
investments necessary to keep our farming operations economically 
viable; and to assure our bankers that there is an adequate safety net.
    While most producers in this Valley are highly diversified, upland 
and pima cotton production remains an important crop in our operations. 
The 2008 Farm Bill has served cotton farmers extraordinarily well and, 
in recent years, has required minimal Federal outlays. However, deficit 
reduction efforts are placing unprecedented pressure on the existing 
structure of farm programs. The cotton industry also faces the unique 
challenge of resolving the longstanding Brazil WTO case.
    In order to respond to the challenge of designing the most 
effective safety net with reduced funding and to make modifications 
that will lead to the resolution of the Brazil case, it is very 
important that the new farm legislation includes the cotton industry's 
proposal of a new revenue-based crop insurance program for upland 
cotton which will result in strengthening growers' ability to manage 
risk. By complementing existing products, the Stacked Income Protection 
Plan, or STAX for short, will provide a tool for growers to manage that 
portion of their risks for which affordable options are not currently 
available. This revenue-based crop insurance safety net would be 
combined with a modified marketing loan that is adjusted to satisfy the 
Brazil WTO case. Even with modifications, the marketing loan will 
remain an important source of cash flow from merchandisers and 
producers.
    I also strongly support the continuation of current loan provisions 
for Extra Long Staple cotton and the special competitiveness program. 
With essentially all ELS production moving into export markets, the ELS 
competitiveness program is especially critical in order to keep U.S. 
pima cotton competitively priced in world markets. The program is 
critically important in a world market that is subjected to abrupt 
changes in trade policy such as last year's decision by Egypt to 
temporarily ban cotton imports. The balance between the upland and Pima 
programs is important to ensure that acreage is planted in response to 
market signals and not program benefits.
    Given the diversity of weather and production practices, the menu 
of crop insurance choices should be diverse and customizable, allowing 
for maximum participation and effective coverage. In the 2008 Farm 
Bill, the introduction of enterprise unit pricing gave producers one 
more option for insuring against those risks that are beyond their 
control.
    I encourage this Committee to resist efforts to further tighten 
existing payment limits and income means tests on support programs. I 
also strongly oppose any attempts to impose payment limits on any crop 
insurance products and any further eligibility tests for crop insurance 
purchasers. Artificially limiting benefits is a disincentive to 
economic efficiency and undermines the ability to compete with heavily 
subsidized foreign agricultural products. Artificially limited benefits 
are also incompatible with a market-oriented farm policy.
    In recent years, conservation programs have become increasingly 
important and I hope those programs will remain useful options. 
Specifically, California producers have made good use of Conservation 
Innovation Grants through the NRCS EQIP provisions. These grants have 
been invaluable in helping our growers meet California's air quality 
regulations. In California alone, NRCS partnered with more than 1,100 
agricultural producers to implement projects that significantly reduce 
emissions. I would urge Congress to continue this program as a priority 
matter in the next farm bill.
    As a final point, cotton farmers understand that our ability to 
produce a crop is directly tied to there being a strong and stable 
demand from the textile manufacturers that produce yarn, fabric and a 
wide variety of textile and apparel products. We are fortunate to sell 
our cotton to mills in the United States, as well as several countries 
in the international market.
    For U.S. mills, the 2008 Farm Bill introduced an economic 
assistance program, and I am pleased to say that the program has been a 
resounding success. We have seen a revitalization of the U.S. textile 
manufacturing sector, as evidenced by new investments and additional 
jobs. I urge this Committee to continue this program in the new farm 
bill.
    With the majority of our cotton sold in global market, the 
continuation of adequately funded export promotion programs such as the 
Market Access Program and Foreign Market Development Program is 
especially critical to the California cotton industry. Individual 
farmers and exporters do not have the necessary resources to operate 
effective promotion programs which maintain and expand markets--but the 
public-private partnerships, using a cost-share approach, have proven 
highly effective and have the added advantage of being WTO-compliant.
    I very much appreciate the opportunity to provide these comments 
and look forward to answering your questions at the appropriate time.
                                 ______
                                 
                        Comment of Stephen Sheer
    Date Submitted: Friday, May 18, 2012, 10:56 a.m.
    City, State: Hudson, OH
    Comment: Let's give healthy natural food a chance and stop using 
chemicals and pesticide to neuter our land and poison the very people 
that are taxed to give the giant Agra Business tax breaks.
                                 ______
                                 
                 Joint Comment of John & Jane Sheffield
    Date Submitted: Saturday, May 19, 2012, 6:35 p.m.
    City, State: Austin, TX
    Occupation: Retired
    Comment: We desperately need better food safety in our country. We 
need to support small farmers in their endeavors to produce healthier 
safer food. We need serious monitoring and oversight of big industrial 
farming. The bottom line is the United States needs Healthy And Safe 
Food.
    Thank you for listening.
                                 ______
                                 
                      Comment of Michael Sheldrew
    Date Submitted: Thursday, May 10, 2012, 10:48 p.m.
    City, State: Carson City, NV
    Occupation: Student
    Comment: It is my understanding that the SNAP/Food stamp program is 
supporting \1/3\ of Nevadans.
    This is a great program aside from its sustainability. I noticed 
that you can't acquire food stamps and go to school more than half-
time. This is counter-intuitive, you are essentially telling people you 
will support them forever. Meaning that without a set of guidelines or 
programs to help individuals in need of food stamps progress in our 
working infrastructure and become self sufficient; they will 
continually be on food stamps. You should have a program that puts 
struggling Americans in a cycle type process that would train and 
assist in a job placement. The programs we have now are a joke, 
training includes Microsoft suite and is limited to office and clerical 
type work. Why not have training in industries that are hurting and 
that could be used to stabilize the economy; such as, manufacturing or 
alternative energy. Yes these are ``skilled'' trades and training might 
be relatively expensive. However, with a long-term employment mentality 
in place persons in these programs would be able to contribute back 
into society and the very programs they took advantage of. You could 
even fund the training by taking .02 cents an hour from the newly 
trained individual for the next x number of years. But, quite frankly 
education and training are two very different things. And people tend 
to get them mixed-up, a good incentive for companies to hire someone 
would be to place them temporarily in the workplace for training 
without pay. The pay would initially come from the government, and just 
pay them \1/2\ in food stamps and \1/2\ in cash. Cash is important 
because of things that are not food, like cleaning supplies, toilet 
paper, paper towels, coffee filters, etc. If you hired them as 
temporary governmental employees you could drug test them, and 
accurately test the training programs. As well as being able to handle 
the insurance side of placing the persons in companies. Furthermore you 
could post the statistics to appease skeptics. Or you could just teach 
people how to grow their own food too.
                                 ______
                                 
                      Comment of Kathleen Shelley
    Date Submitted: Sunday, May 20, 2012, 10:50 p.m.
    City, State: Vida, OR
    Occupation: Retired
    Comment: Americans deserve food free of chemicals and gmos. 
Commercial foods are heavily subsidized. Small farmers and organic 
farmers deserve equal consideration.
                                 ______
                                 
                       Comment of Charles Shelly
    Date Submitted: Friday, May 18, 2012, 3:08 p.m.
    City, State: Albuquerque, NM
    Occupation: Retail
    Comment: No crop or insurance subsidies should be provided to Any 
farm or farmer that degrades the environment with toxic pesticides, 
agricultural chemicals, or genetically-modified organisms. In short, no 
subsidies of any kind, except to farmers who follow established 
principles of Organic farming.
                                 ______
                                 
                        Comment of David Shelton
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: Casar, NC
    Occupation: Retired
    Comment: The era of chemical ag and genetically engineered crops 
has brought us to a very dangerous place, and we have to change course 
if we expect to be able to feed our population in the future.
    Genetic engineering has proved to be a colossal failure, as pests 
and disease organisms adapt to the genetic crop modifications. Further, 
GM crops have not, as promised, produced more, but less, and have 
contaminated standard crops through cross pollination. Cross pollinated 
crops have been used as grounds for patent infringement lawsuits from 
Monsanto and others against those whose crops were contaminated. This 
is absolutely outrageous, and must be aggressively addressed and 
corrected. Monsanto, et al, have had their way for far too long, and we 
can now clearly see that it is leading us to disaster. The tragedy that 
they caused in India should be evidence enough of their failure. I am 
referring to the crop failures that led to numerous suicides among 
Indian farmers. Please do what you can to address these issues in this 
bill.
    High chemical input monocropping has produced inferior, toxic 
crops, and has ruined the land with excessive chemicals. It has also 
given rise to We need a fundamental change in our approach to 
agriculture, wherein we work with nature and not against it. I am for 
any efforts that move us toward that goal.
    For further evidence of the damage done to our environment and 
farmlands, see following link to video by Dr. Don Huber: http://
vimeo.com/22997532.
    I further support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you.
                                 ______
                                 
                       Comment of Melissa Shelton
    Date Submitted: Friday, May 18, 2012, 9:12 a.m.
    City, State: Pagosa Springs, CO
    Occupation: Farm Intern/Student/Home Gardener
    Comment: I will allow our wise founding fathers to speak for me . . 

    Its time to end the corporate rule on food and allow people to make 
their choice on where they would like to purchase food items.
    IMonocropping and GMO are destroying not only our ecosystems but 
our bodies as well.
    IPlease keep the small farmer, the communities that built America 
strong.

          ``The nation that destroys it's soil . . . destroys 
        itself''--Franklin Delano Roosevelt
          ``If people let the government decide what foods to eat and 
        what medicines to take, their bodies will soon be in as sorry a 
        state as the souls who live under tyranny.''--Thomas Jefferson
                                 ______
                                 
                       Comment of Marlene Shepard
    Date Submitted: Thursday, May 17, 2012, 2:33 p.m.
    City, State: Hartford, CT
    Comment: Without the help of SNAP benefits, I would not have money 
to feed myself or my disabled son. We are both disabled, pending SSI, 
and cannot work, so we depend greatly on these benefits. Please do not 
cut. It's hard to stretch $200.00 as it is. Less funds would make it 
impossible to budget and we would go hungry.
                                 ______
                                 
                       Comment of Richard Sheresh
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: Chula Vista, CA
    Occupation: Consultant--Data Analysis
    Comment: It is a shame that subsidies continue for those mega-
farmers who have no need for them, only greed. Congress should be 
involved with good foods, not political contributions. Congress should 
continue to emphasize continued use of tax dollars that benefit the 
country through nutrition and conservation benefits that are long term 
and obvious. Continued give-aways to those who are in positions of 
political power through contributions only continues to degrade the 
nation's ability to provide local and sustainable agriculture. I urge 
you to support Local Foods, Farms and Jobs Act (H.R. 3286, fund 
conservation programs, such as the Conservation Stewardship Program and 
make sure any programs or insurances are tied to good conservation 
practices. Nutritional programs should be promoted and not slashed. 
Subsidies should be slashed not promoted.
                                 ______
                                 
                       Comment of Dorothy Sherman
    Date Submitted: Friday, May 18, 2012, 4:20 p.m.
    City, State: Greendale, WI
    Occupation: Retired
    Comment: I want to see more support for non GMO and organic foods--
the factory farms and major food producers are killing Americans with 
their chemicals and GMO's. Support nutrition in our schools and provide 
healthier food to the poor. Stop subsidizing corn and factory farms.
                                 ______
                                 
                       Comment of Valerie Sherman
    Date Submitted: Wednesday, May 09, 2012, 3:15 p.m.
    City, State: Cayce, SC
    Occupation: Director of Outreach Ministry
    Comment: Greetings! I am unsure if you know the importance of the 
SNAP and other food programs. These and other subsidies or programs 
such as pantries and ministries are imperative to the survival of our 
elders. They depend on these services on a monthly basis because they 
help bridge the gap the seniors experience. Not only our seniors but, 
our children as well. We speak so negatively regarding our children 
but, don't reach out to help them. You must understand that in order to 
help them better themselves we must have their attention and we can't 
do that when all they hear are their empty stomachs. Keep these things 
in place and help Ministries such as ours that try to educate people on 
helping themselves. Thank you.
                                 ______
                                 
                        Comment of Inga Sherrill
    Date Submitted: Wednesday, May 09, 2012, 8:59 p.m.
    City, State: Hanceville, AL
    Occupation: Hospice Patient Caregiver
    Comment: Hunger in the USA is higher now than it has been in 
decades. We Must Change this! Nutritional Programs must not be cut 
short! We have too many avenues to increase revenue and cut programs 
that are truly ``pork''.
                                 ______
                                 
                       Comment of Felisa Sheskin
    Date Submitted: Friday, May 18, 2012, 1:37 p.m.
    City, State: Ellenville, NY
    Occupation: Teacher
    Comment: Local organic food is important to me and my family. One 
of the reasons I live in the Hudson Valley is because so many brave 
people are farming small and safe. Please don't let agribusiness giants 
ruin this growing grass roots movement.
                                 ______
                                 
                        Comment of Alice Shields
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: New York, NY
    Occupation: Classical Musician
    Comment: I want healthy organic food supplied by my farmers locally 
when possible. I want small farmers to receive all the support they 
need from all forms of government. I want all subsidies to non-organic 
farms and large agribusinesses terminated.
                                 ______
                                 
                         Comment of Doorae Shin
    Date Submitted: Friday, May 18, 2012, 3:47 p.m.
    City, State: Honolulu, HI
    Occupation: Teacher's Aide, Host, Activist
    Comment:Aloha,

    Please consider my support of a healthy farm bill. The current farm 
bill allows big agribusiness to collect subsidies and benefits for an 
unsustainable and unjust system of farming. Though it is advertised to 
be a way to solve hunger problems around the world, it has only 
concentrated food (unhealthy food) into few areas of the world, while 
hurting the soil and land and causing long-term damage to the 
environment.
    We must adopt a sustainable, responsible way of producing our foods 
through the policies of the next farm bill.
    I support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286) and funding of conservation 
programs, such as the Conservation Stewardship Program. Any insurance 
subsidies should be in compliance with the conservation programs.
    We must also implement all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236)and also maintain the EQIP Organic 
Initiative.
    Please understand your responsibility of protecting our health as 
well as the health of the environment and the importance of sustainable 
agriculture. We must protect the future generations by implementing 
policies that allow local and organic farmers to grow, and that hold 
irresponsible agribusinesses accountable for detriments to the 
environment and health of its consumers.
            Mahalo for you consideration,

Doorae Shin.
                                 ______
                                 
                        Comment of Marci Shindel
    Date Submitted: Sunday, May 20, 2012, 12:12 p.m.
    City, State: Corvallis, OR
    Occupation: Mom
    Comment: I speak for many moms (and people in general) out there 
who do not actively follow food/health issues for whatever reason. But 
I am a `foodie' and eating cleaner, healthier food is a Huge interest 
to all of us. Please take whatever steps you can to get the chemicals 
and crap out of our food, to get food labeled, to reverse what GMOs 
have done (allergies, heightened sensitivities, and diseases). If you 
can look at what we eat and the problems that afflict our society and 
Not tie them directly to the genetically modified, chemical-laden food 
that is most commonly available to us, then I'd like to vote ``no 
faith'' (in you) . . . this is a huge problem, it won't go away unless 
we take steps to clean up our food.
                                 ______
                                 
                        Comment of Elaine Shiner
    Date Submitted: Friday, April 27, 2012, 4:00 p.m.
    City, State: Port Orchard, WA
    Occupation: Retired, Waitress, Psy. Aide, Bookkeeper, Electrician
    Comment: I grew up on N.D. Diversified farm, learned work ethic, 
how to meet challenges and deadlines, observation skills and analytical 
problem solving and observation skills, time management, self 
confidence to succeed in life. you will be depriving kids of very 
necessary life skills if you restrict their experiences . . . Farming 
is best learned hands on with later training to teach more scientific 
improvement of methods.
                                 ______
                                 
                       Comment of Diane Shoemaker
    Date Submitted: Friday, May 18, 2012, 3:01 p.m.
    City, State: Waimea, HI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I live on Kauai, known as the ``Garden Island'' where we 
import 85-90% of our food that travels anywhere between 5-10,000 miles 
and by the time it reaches us our fresh food is not fresh, it's at 
least 8-10 days old, rendering it lost with vital nutrition. On the 
west side of Kauai we have no ``organic'' farming, just thousands of 
acres sprayed with very toxic pesticides from 5 out of the 6 major 
giant GMO companies. Since moving here from the mainland I have 
developed all sorts of health issues from breathing in airborne 
pesticides. The school that I live literally next door to, Waimea 
Canyon Middle, has sent students home sick after the fields that are 
adjacent to the school and neighborhood have been sprayed with toxins. 
Pioneer, a Dupont Company, is currently in a lawsuit with the town of 
Waimea due their negligence and harm to public health with all their 
spraying.
    A small group of residents and myself started an organic community 
garden (www.kekahacommunitygarden.org) so that we could have access to 
fresh, locally grown food that is affordable and support our health. As 
I said, we have No Organic food and very little locally grown food; 
it's not available here on the west side of the ``Garden Island''. 
There is simply not enough support to encourage organic local food 
production.
    We have a very high percentage of Native Hawaiians compared to the 
state of HI. Native Hawaiians have the highest rates of diabetes, 
hypertension, obesity, etc. because they cannot afford the expensive 
shipped-in old'' produce in our local grocery stores. The major 
farmers, GMO companies, are Not producing locally grown food, but 
rather conducting research while our people are dying of diseases that 
are directly related to food consumption. What choice do our people 
have but to buy cheap processed foods while we fight extremely high 
rates of cancer in this area?
    We need a farm bill that is going to support local and organic food 
production, not research companies poisoning us. We have so much land 
(most is privately owned by good folks that are land rich, cash 
poor)and it could be put to good use feeding our people. Yes, feeding 
our people is what the farm bill is really about and I want a farm bill 
that supports that. It's not rocket science although I do appreciate 
the complexities of law making. Do what's pono (right, correct, 
responsible). This is what I want you, my representatives to support. I 
pay my taxes, vote in All local and national, primary and general 
elections and take time out of my day to be involved in the democracy I 
live in.

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    We believe our Kekaha community garden is a start in the right 
direction, but our population needs more than just our community 
garden, we need our representatives to support a quality farm bill so 
that all people are fed fresh, nutrient rich food that is grown locally 
without harming the `aina (land), other species, ourselves, our 
climate. We need a farm bill that embodies the concept that we can have 
good paying jobs that are ``green'' and not toxic. Please help me keep 
Kauai a true ``Garden Island''. I'm not from here, but I care deeply 
about this place and the people from here. I care deeply about all the 
other towns and cities where people live and grow food. This is basic 
life stuff--feeding our people. This is what deserves your utmost 
support and attention to do what's pono. Why else are we all here? It's 
incredible that this farm bill is even an issue, that it is threatened. 
Always follow the path of what is right and make all your decisions 
from there. Thank you for taking the time to read this--I know many of 
my friends, family, neighbors.
                                 ______
                                 
                       Comment of Dorea Shoemaker
    Date Submitted: Thursday, May 17, 2012, 11:40 p.m.
    City, State: Incline Village, NV
    Occupation: Healthcare
    Comment: We must support sustainable farming that does not rely on 
pesticide sprays, GMO seeds and other hazardous non sustainable 
farming. When we support the local family farm, then we are supporting 
sustainable farming.
                                 ______
                                 
                     Comment of Lori Shollenberger
    Date Submitted: Friday, May 18, 2012, 1:06 p.m.
    City, State: Easthampton, MA
    Occupation: Self-Employed/Piano Teacher
    Comment: Massachusetts and Hampshire City in particular is leading 
the way in organizing land and resource to produce local, organic food. 
The rest of the country is so far behind--and this can and will become 
a real crisis in the near future. We MUST reorganize how we produce 
food as a nation. Thanks as always for your work! We appreciate you!
                                 ______
                                 
                         Comment of Cindy Shook
    Date Submitted: Friday, May 18, 2012, 7:39 p.m.
    City, State: Golden, CO
    Occupation: Retired, Retail Clerk
    Comment: The nutritional value in our food is going down. Tomatoes 
grown hydroponically taste like wimpy cucumbers, farmers are receiving 
feed that has no nutritional value. Pesticides that are poisonous for 
us. Companies that produce these detrimental products not only poison 
crops in neighboring organic farms but seek to drive them out of 
business, This is morally wrong! Needs to be stopped.
                                 ______
                                 
                         Comment of Billy Shore
    Date Submitted: Wednesday, May 16, 2012, 5:42 p.m.
    City, State: Washington, D.C.
    Occupation: CEO and Founder, Share Our Strength
    Comment: Share Our Strength is a national nonprofit organization 
dedicated to ending childhood hunger in the United States by connecting 
children with the nutritious food they need to lead healthy, active 
lives. Through our No Kid Hungry campaign, Share Our Strength ensures 
children in need are enrolled in effective Federal nutrition programs; 
invests in community organizations that fight hunger; teaches at-risk 
families how to cook healthy, affordable meals; and builds public-
private partnerships to end childhood hunger at the state and city 
level. This approach allows Share Our Strength to leverage Federal 
investments in Federal nutrition programs to ensure these programs are 
used effectively and efficiently. We are pleased to submit testimony 
for the record to the House Agriculture Committee, Subcommittee on 
Nutrition and Horticulture for your hearing on the farm bill 
reauthorization.
    The reauthorization of the farm bill offers a unique opportunity to 
ensure children in this country receive the food they need to grow and 
thrive. The Supplemental Nutrition Assistance Program (SNAP) is a 
critical lifeline for millions of families struggling to make ends 
meet, helping them to put food on the table and to maximize nutrition 
on a limited budget. More than 16 million children are living in 
poverty in the United States and one in five children are at risk of 
hunger. Over 46 million Americans rely on SNAP benefits to buy the food 
they need to feed their families, and 76 percent of SNAP households 
include a child, elderly person, or disabled person. Ensuring our 
children have enough to eat must be a priority for our nation.
    At Share Our Strength, we have long seen firsthand how important 
SNAP is to families. Recently, individuals from across the country have 
written us to share the important role SNAP played during difficult 
times in their lives, and, most importantly, how the program allowed 
them to get back on their feet to a place where they no longer needed 
to rely on the program.
    Tracy, from the Chairwoman's home state of Ohio, told us about how 
food stamps served as a safety net to provide for her children when her 
family fell on hard financial times. She wrote to us: ``I am now 61 
years old but when I was a teen my parents died and I became pregnant. 
My daughter and I used food stamps as I finished school and then became 
employed. She is now raising our grandchildren after she attained her 
college degree with high honors and I am happily married for many 
years. I am forever grateful that we had that help when it was so 
necessary if I were to succeed and she was to thrive in preschool.''
    L. in Mr. Baca's home state of California shared with us: ``Like so 
many other people, I was the eldest of two siblings being raised by a 
single mother. The struggle for our family to stay fed was aided by 
school lunches and by my grandmother who often supplied our evening 
meal and most meals on weekends. It wasn't until I was much older that 
I came to realize that she fed us so frequently because there was often 
little to eat at home by the end of the month. As an adult with a 
professional job and a college education, I sometimes run into people 
that make negative comments about people on public assistance. They 
could never have guessed that I had been one of those people . . . It 
is tempting to vilify people that have fallen on hard times because 
then you can comfort yourself with the idea that if you do everything 
right, this won't happen to your family. Sometimes life just doesn't 
turn out the way your planned it--not because you failed, were lazy or 
didn't try hard enough . . . but because that is life.''
    SNAP recipients are often our nation's heroes. Kimberly in Indiana 
told us: ``My experience with food stamps began in May of 1994, and it 
should have begun much earlier. I have five sons, and my husband was in 
the U.S.M.C. He was in the military drawdown after the Gulf War, so our 
civilian life began March 08, 1992. We went through a lot of hardship 
trying to be self-reliant, and in the end it did not work. I was 
desperate, and applied for food stamps. My family began to eat well. 
Their health increased. They became carefree, not having to be hungry. 
I am grateful to my government for helping us when we needed it.''
    Lack of an adequate, nutritious diet during childhood hinders 
educational achievement, and has long-term consequences for future 
workforce competitiveness. Hungry children cannot learn as much or as 
fast because chronic under-nutrition impairs cognitive development. 
They are also more likely to be sick often, resulting in absence or 
tardiness from school. Hungry children are 1.4 times as likely to 
repeat a school grade. As we compete with a global workforce, hunger 
saddles our youth with lower educational and technical skills and our 
nation with a less capable group of workers. Funding cuts to SNAP would 
be detrimental to these families and would place children who rely on 
food provided by SNAP at an unfair disadvantage compared with their 
peers.
    Proposals have been discussed in Congress this year to turn SNAP 
into a block grant program. The estimated effect of such a policy is 
severe: cuts of as much as $134 billion to states that rely on Federal 
funding for SNAP to ensure families have access to food. These funding 
cuts would be devastating to the families who rely on SNAP to feed 
their children.
    In addition to the health and education benefits SNAP provides to 
children and families, the program also provides crucial economic 
stimulus activity for communities across the country. Every $5.00 in 
new SNAP benefits generates $9.00 in total community spending. 
Additionally, SNAP has proven itself a program that is responsive to 
the economic climate, especially in recent years. As unemployment 
numbers grew during the recession, SNAP responded quickly and provided 
benefits to families facing job loss, often due to layoffs or budget 
cuts. Now, as the economy slowly begins to recover, SNAP participation 
is expected to decline to nearly pre-recession levels. According to the 
U.S. Department of Agriculture, new SNAP recipients stay on the program 
an average of 8 to 10 months, demonstrating the program's effectiveness 
as transitional assistance for those falling on hard times.
    As important as ensuring families have access to the SNAP benefits 
they need is giving them the tools to prepare healthy meals with the 
ingredients they purchase with SNAP dollars. Share Our Strength 
partners with community non-profit organizations to run Cooking 
Matters, a 6 week nutrition education program that has taught more than 
88,000 low-income families how to stretch their food dollars in a 
healthy way since 1993. Many of our community partners depend on 
funding from the SNAP Nutrition Education program to run Cooking 
Matters courses. Participants in the program learn how to select 
nutritious and low-cost ingredients, prepare them in healthy ways and 
maximize their food resources.
    We've seen proven results from Cooking Matters, demonstrating 
additional support for the SNAP Nutrition Education program. One such 
example is a woman named Lareese from Graysonville, Maryland. Lareese 
is a single mother of two, relying on SNAP and WIC to feed her family. 
She recently graduated from a dental assistant program and is looking 
for work. Lareese is active in her community center, and signed up to 
take a 6 week Cooking Matters course offered there. Before 
participating in Cooking Matters, Lareese would sometimes run short on 
groceries before her benefits renewed. Six weeks after graduating from 
the course, she was able to stretch her food money an additional 2 
weeks. Before the program, she would buy about two food items with a $6 
WIC check for fruit and vegetables. Now, after having learned to 
compare the unit price of groceries and consider frozen and canned 
fruit as an alternative to fresh, she's able to stretch that $6 to buy 
two packages of frozen fruit, two canned fruits and some applesauce. As 
a result of Cooking Matters and SNAP Nutrition Education, Lareese is 
providing healthier, more nutritious foods for her family.
    Myths about the ways in which SNAP recipients spend their benefits 
continue to exist, including that the program's participants spend 
their money on unhealthy fast-food options. A recent study by Share Our 
Strength supports our first-hand experience with SNAP recipients who 
are eager to provide their families with healthy foods. We surveyed 
1,500 low to middle income families--the majority of whom are SNAP or 
WIC recipients--about their cooking habits. In the study, which was 
supported by the ConAgra Foods Foundation, 85 percent of families rated 
eating healthy meals as important, and eight in 10 families reported 
they cook dinner at home at least five times a week. In a typical week, 
a low-income family eats fast food for dinner one night a week. As 
income decreases, the frequency of eating dinner made at home 
increases. But for all the cooking low income families are doing, 
they're struggling to make healthy meals because their food budgets are 
limited.
    The study found that three in four families agree that cooking 
healthy meals at home is realistic, but only about \1/2\ of those we 
surveyed are able to make healthy meals most nights of the week. That 
is far too many families whose healthy eating aspirations aren't 
matching up to their daily realities. When asked what was keeping them 
from eating healthy meals, cost was the most commonly cited barrier. 
Healthy options like fresh produce, lean protein and seafood are 
commonly passed over at the store because of their price. These 
findings demonstrate strong support for the continued Federal 
investment in Federal nutrition programs, including SNAP and SNAP 
Nutrition Education.
    We recognize the challenges presented by the current fiscal 
environment, and that the Committee is under pressure to find savings 
this year. However, cutting funding for SNAP--either through policy 
changes that limit eligibility for the program for millions of 
Americans who need these benefits, or by lowering benefit levels--would 
be devastating to the economic and health well-being of our country. 
Efforts to fight against childhood hunger and promote child nutrition 
have long enjoyed bipartisan support, and there is a longstanding, 
bipartisan commitment to protecting SNAP, child nutrition programs, and 
other nutrition assistance programs in past deficit reduction plans. 
Congressional committees and the President's bipartisan National 
Commission on Fiscal Responsibility and Reform have sought ways to find 
cost-savings in Federal programs without cutting funding for anti-
hunger programs. We urge you to take the same tack when negotiating the 
farm bill legislation.
    We appreciate the opportunity to submit testimony on this important 
issue, and look forward to the Committee's actions moving forward on 
the Nutrition title of the farm bill.
                                 ______
                                 
                        Comment of Michael Shore
    Date Submitted: Friday, May 18, 2012, 4:49 p.m.
    City, State: Ashland, AK
    Occupation: Retired
    Comment: Nutrition is the only basic reason for food. Filling 
bellies not packages, shelves or bank accounts. We eat so we can live. 
We have been trained to accept eating junk as fun and easy. Education 
by advertisers is effective. What good do you do the nation if you 
poison the citizens and the farmland? Best Practices means food for the 
coming generations. Stop GMO Stop Mono cropping Stop poisoning the land 
and sea. Educate the people to be healthy; to make healthy choices and 
jail the producers and users of poison who lay waste to our very 
landscape in the name of profit. Do that now or just wait for Mother 
Nature to call time out for humans . . . she can do it. Either way bad 
practices will be ended.
                                 ______
                                 
                       Comment of Ernie Shortness
    Date Submitted: Monday, March 26, 2012, 9:04 p.m.
    City, State: London Mills, IL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: Dear Congressmen:

    If I could allocate resources for the next 5 years in U.S. 
agriculture, I would eliminate crop insurance and direct payments to 
farmers. Each farmer should have to make good business decisions about 
the crops he plants and how aggressively to expand his operation 
without being bailed out by tax dollars.
    I would take the savings from these cuts and upgrade and repair our 
lock and dam system on the Mississippi river and its tributaries. That 
will help the U.S. keep pace with increasing foreign competition, and 
benefit all U.S. farmers and consumers alike.
    I thank you for this opportunity to comment.
            Sincerely,

Ernie Shortness.
                                 ______
                                 
                  Comment of Carol Lynne Shottenhamer
    Date Submitted: Friday, May 18, 2012 2:07 p.m.,
    City, State: Folsom, CA
    Occupation: Retired Computer Analyst
    Comment: I voted for you Dan Lundgren now it's your turn to act and 
protect the farmers and our food. Please do your part in protecting us 
and our future generations. Don't let big business rule our lives by 
bad decisions. Help protect America and Americans.
                                 ______
                                 
                       Comment of Cassandra Shoup
    Date Submitted: Saturday, May 19, 2012, 12:35 a.m.
    City, State: Downingtown, PA
    Occupation: Engineer
    Comment: Having local food available from farmers in our 
neighborhoods is very important. It promotes healthy seasonal eating of 
fresh food which contains more nutritional value than produce which is 
transported for long distances. I am a first year work share member of 
a local CSA and having that opportunity allows me the choice to eat the 
foods I want to put in my body. I do not believe that processed foods, 
no matter how inexpensive, are the right direction for our society and 
will limit are ability to continue providing a higher quality of life 
for all people. Agribusiness does more harm to our economy and 
environment than it does good. Please cast your vote for what benefits 
increased food freedom and consider supporting the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Lee Shropshire
    Date Submitted: Sunday, May 20, 2012, 10:28 p.m.
    City, State: Nashville, TN
    Occupation: Voice-Over Talent for Medical Continuing Ed Online 
Programs
    Comment: I want to eat organic, fair trade, locally produced food, 
made without pesticides, and non GMO. I want farms to be subsidized to 
produce the above, and not to be forced to dump their product when 
quotas are met, while people in this country are starving, and while we 
can help developing countries. I want congress to stop [Redacted] 
around and messing with the environment. Stop it. We don't need more 
gas and oil development, you idiots. We need renewable and sustainable 
energy sources which will create sustainable jobs. What's the matter 
with all of you? Get your shit together, and address my largely shared 
concerns.
            Sincerely,

Lee Shropshire.
                                 ______
                                 
                        Comment of Gerry Shudde
    Date Submitted: Sunday, May 20, 2012, 11:06 a.m.
    City, State: Sabinal, TX
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 1,000+ acres
    Comment: We need to have the Govt. support and encourage small 
farms. They are the only ones that can supply nutrient rich and clean 
disease free food. The research is there.
                                 ______
                                 
                       Comment of Anita Shumaker
    Date Submitted: Friday, April 27, 2012, 5:12 p.m.
    City, State: West Unity, OH
    Occupation: College Professor
    Comment: It has been said that ``America has the best dressed 
hungry people in the world''. They are our neighbors and members of our 
communities, as well as your constituents. I support the local food 
pantry, but we really need your support for a strong farm bill to 
preserve programs such as SNAP, TEFAP, and CSFP. Cutting food programs 
to the most vulnerable is not the way to balance the budget.
    Thank you for your consideration.

Anita Shumaker.
                                 ______
                                 
                       Comment of Sheryl Shumsky
    Date Submitted: Friday, May 18, 2012, 6:31 p.m.
    City, State: Seattle, WA
    Occupation: Musician
    Comment: Industrialized farming is destructive in so many ways. 
Please make strong measures now to insure family farms can coexist with 
larger agribusiness. Also environmental protections insure humane 
treatment of livestock and Mother Earth. The bottom line is human 
health balanced with plentiful harvests. I am against GMO because the 
cat is out of the bag--we have evidence it's a dubious tactic (super 
weeds, lack of flavor) yet corporations like Monsanto want to control 
this market so all tactics become fair game and they can't foretell the 
future side effects these GMO's have likely unleashed. Human health is 
at stake and a way of life--family owned ranches and farms. Keep this 
in mind with all dealings with farm policy. Don't give in to the 
lobbyists! Listen to the people!
                                 ______
                                 
                        Comment of Brenda Shunn
    Date Submitted: Friday, May 18, 2012, 1:06 p.m.
    City, State: Austin, TX
    Occupation: Physical Therapist, Massage Therapist
    Comment: I think it's high time that we do what is morally correct 
towards our fellow man, fellow beings, land and environment. Our health 
care costs would not be the highest in the world if the food source was 
not so unhealthy! I do not support genetic modification at all--unless 
those plants which are to be genetically modified are in a carefully 
controlled Closed environment--and those foods labeled--it is bad 
enough that it is a challenge to find food sources that are not 
affected by thoughtless s greed, inhumane environments--even our 
vegetables now carry products thanks to use of hormones and antibiotics 
and the likes on defenseless animals--support safe and healthy 
agriculture!
                                 ______
                                 
                        Comment of Anne Shuster
    Date Submitted: Monday, May 14, 2012, 3:24 p.m.
    City, State: Pittsburgh, PA
    Occupation: Teacher
    Comment: Many people work with low salaries. They do not earn 
enough to pay all expenses and food. The SNAP money is greatly needed 
in Pennsylvania! Thank you!
                                 ______
                                 
                        Comment of Diana Shuster
    Date Submitted: Friday, May 18, 2012, 5:08 p.m.
    City, State: Rock Island, TN
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 301-500 acres
    Comment: I am an American Farmer. I want real people, not big 
corporate ag, back to raising food the way nature intended. Grass fed 
and pasture raised. With heirloom varieties--not GMO, hormone, 
pesticide, and antibiotic ridden products. Real food for real people--
not by science and profit driven entities who care only for the bottom 
line and have no soul nor conscience!
                                 ______
                                 
                        Comment of Helen Shuster
    Date Submitted: Wednesday, May 09, 2012, 2:55 p.m.
    City, State: Rochdale, MA
    Occupation: Retired
    Comment: I work with a group of intergenerational college students 
from Worcester State University in Massachusetts. We do SNAP outreach 
to seniors and others in need of assistance. As we help applicants 
submit their SNAP applications we hear their stories and know that they 
are truly in need of assistance to buy food. Many lower income seniors 
often have to choose whether to buy their medications or food and they 
are often hungry. Food prices are up and this is particularly hard on 
seniors with fixed incomes. SNAP is one of the best safety net programs 
with only a 3% level of inappropriate expenditure and is much more 
efficient than many other wasteful government programs such as military 
expenditures. SNAP is also a vitally important program for working 
families who even with two or three jobs find it hard to feed their 
children. Childhood hunger is a disgrace in this country. If you cut 
the SNAP budget you will be doing great harm to innocent children and 
needy families. Cutting SNAP is shortsighted because hungry children 
and seniors get sick more often and need expensive medical care which 
is more of a drain on the economy than SNAP. Make the correct and 
courageous vote to continue to fund in this time of need in the U.S. Do 
not reduce the deficit on the backs of those who can least afford it 
and will be most hurt.
                                 ______
                                 
                       Comment of Janet M. Shute
    Date Submitted: Sunday, May 20, 2012, 10:57 p.m.
    City, State: New York, NY
    Occupation: Retired
    Comment: Dear Chairman Lucas,

    I understand that tomorrow, May 19th, is the final opportunity to 
submit testimony to the House Committee on Agriculture on the next farm 
bill. My district representative is being copied on this letter. I am a 
senior citizen who is appalled by the lack of attention to the needs 
and issues that dedicated young farmers are facing. I was also 
distressed to hear that only one beginning farmer was invited to 
testify on the challenges and critical needs of the next generation. 
Monsanto's monopoly is terrifying to those of us who want our children 
and grandchildren to grow up in a healthy fashion. Even more 
discouraging is the short sighted lack of planning and support for hard 
working young people who are turning up in large numbers to reclaim our 
land--many using organic practices--When It Would Cost So Little! I 
want to share my support for programs that help the next generation of 
growers build strong farm. It is estimated that 125,000 farmers will 
retire in the next 5 years. It is absolutely critical that farm bill 
programs help support young farmers to get started in this challenging 
field. I ask that the Committee endorse all of the provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorization of a new microloan program, to enable young 
        and beginning farmers to better access FSA loan programs.

  <bullet> Revision of FSA rules to make loan programs more accessible 
        to more young and beginning farmers.

  <bullet> Reaffirmation of the existing cost share differential for 
        BFRs within EQIP. Also, reaffirmation of the advance payment 
        option allowing beginning and socially disadvantaged producers 
        to receive an advance payment for the project's costs for 
        purchasing materials or contracting services, but increase the 
        limit on the advance payment from 30 percent to 50 percent of 
        costs.

  <bullet> Amending the Farm and Ranch Land Protection Program (FRPP) 
        to make farm viability part of the purpose of the program and 
        to give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill. Thank you for the opportunity to submit 
testimony to the House Committee on Agriculture on the next farm bill.
            Sincerely,

Janet M. Shute.
                                 ______
                                 
                        Comment of Mary Shyshka
    Date Submitted: Friday, May 18, 2012, 1:28 p.m.
    City, State: Bayonne, NJ
    Occupation: Hospital Administration
    Comment: Agree with everything in the e-mail--support small farms 
without pressure from big ag, dismantle CAFO'S, label GMO's, give us a 
right to organic foods and raw milk, etc.
                                 ______
                                 
                         Comment of Aisha Sial
    Date Submitted: Saturday, May 19, 2012, 12:57 a.m.
    City, State: Seattle, WA
    Occupation: Gardener
    Comment: Science guided by righteousness shows us a way out of the 
destructive practices used by as such producers as Monsanto. To attract 
the Mercy of Our Master and Creator more of us growers should to be 
using methods such as permaculture and grass fed livestock.

           30:31  ``So set thy face to the service of religion as one 
        devoted to God. And follow the nature made by Allah--the nature 
        in which He has created mankind. There is no altering the 
        creation of Allah. That is the right religion. But most men 
        know not.''--Holy Quran.
                                 ______
                                 
                       Comment of Kathryn Sibley
    Date Submitted: Friday, May 18, 2012, 1:58 p.m.
    City, State: Richmond, CA
    Occupation: Office Worker
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative. Maintaining a 
        strong food stamp program that will feed the millions who have 
        lost jobs or are working with subsistence pay, thanks to our 
        Federal government's bad management.

    Please do not make bad farm policy even worse. It's time to take a 
different approach and start over with real reform. As a resident of 
Richmond, California, I am watching the development of solid urban 
farming opportunities that can be part of a citizenry-oriented farm 
bill.
                                 ______
                                 
                    Comment of Kevin Gershom Sicard
    Date Submitted: Friday, May 18, 2012, 10:38 p.m.
    City, State: Independence, OR
    Occupation: English Teacher
    Comment: U.S. food and agricultural policy must focus on adopting 
best agricultural practices that put the health of its citizens, the 
land and the livelihood of farmers and farm workers over the interests 
of industrial agriculture lobbyists.
    Unfortunately, we as a nation are not there yet. Not only are some 
politicians out of touch with the values of the American people, but 
corporate agribusiness has a stranglehold on our regulatory system and 
our political leaders.
    But with your help Rep. Schader, we can change that.
    Farmers and eaters across the U.S. benefit from a fair and healthy 
farm bill. We need your help today. Right now the House Agriculturee 
Committee is accepting public comments on this critical piece of 
legislation.
    I request that you do the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Sarah Siebach
    Date Submitted: Sunday, May 20, 2012, 10:18 p.m.
    City, State: Madison, WI
    Occupation: Student
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a young farmer 
and I'd like to share my support for programs that help the next 
generation of growers build strong farm businesses. As it's estimated 
that 125,000 farmers will retire in the next 5 years, it's absolutely 
critical that farm bill programs help citizens get started in this 
challenging field. I ask that the Committee endorse all of the 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill. As a college student, I've seen the 
tremendous good that SARE grants and others generate both providing 
opportunities to start/continue agricultural studies here at school and 
outreach with the community. We couldn't progress without them! I also 
hope that when I finish studying, I can begin work on my own orchard; I 
know this will be impossible to achieve without the blessing and 
backing of the government to get started. Please continue to encourage 
and enable hopeful farmers!
            Sincerely,

Sarah Siebach.
                                 ______
                                 
                        Comment of Arlie Siebert
    Date Submitted: Friday, May 18, 2012, 12:23 p.m.
    City, State: Scotland, MD
    Producer/Non-producer: Producer
    Type: Field Crops, Other
    Size: 301-500 acres
    Comment: I have farm interests in Maryland and Kansas. Conservation 
programs, helping new farmers get started and a huge health and 
business concerns with GMO's and glyphosates are my particular 
interests this year in the farm bills.
                                 ______
                                 
                         Comment of Dan Siebert
    Date Submitted: Friday, May 18, 2012, 10:32 a.m.
    City, State: Louisville, KY
    Comment: My family is friends with numerous small family farmers 
who provide us with an abundance of delicious safe food. These farmers 
work hard and make limited amounts of money and they care dearly about 
the land, water and air. Please work to continue the law for subsidized 
farmers to work sustainable conservation practices on their farms. 
Thank you.
                                 ______
                                 
                       Comment of Heidi Sieberts
    Date Submitted: Sunday, May 20, 2012, 11:00 a.m.
    City, State: Talent, OR
    Occupation: Unemployed
    Comment: We need to protect and support organic, small farmers.
                                 ______
                                 
                      Comment of Heidi Siegelbaum
    Date Submitted: Friday, May 11, 2012, 11:13 a.m.
    City, State: Seattle, WA
    Occupation: Sustainable Tourism Consultant, Eco. Dev.
    Comment:

    Funding for farmland acquisition

  <bullet> Subsidies for new farmers

  <bullet> Funding for RBOG and RBEG programs

  <bullet> New farmer program funding

  <bullet> Farm to school initiatives
                                 ______
                                 
                         Comment of Anja Sieger
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: Franklin, WI
    Occupation: Writer
    Comment: At the age of 25 my health has already been compromised 
from exposure to pesticides, genetically modified wheat, corn and soy. 
Many of my friends in my generation have suffered similarly. This takes 
a toll on our ability to perform and function in a job in an already 
blighted economy. I urge you to consider the incredible illness so many 
Americans currently suffer from large scale farming.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you.
                                 ______
                                 
                         Comment of Dan Sigmans
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Perkasie, PA
    Occupation: Student
    Comment: Agricultural subsidies in the U.S. severely distort the 
world commodities market and drive the cost of certain unhealthier 
foods lower than other foods within the U.S. Therefore, reform the 
agricultural subsidies so that the only ones that remain are those that 
encourage conservation and sustainable agricultural practices.
                                 ______
                                 
                        Comment of Ling Sigstedt
    Date Submitted: Saturday, May 19, 2012, 9:56 a.m.
    City, State: Denver, CO
    Occupation: Art Director
    Comment: The people have a basic right to be protected from 
monopolistic organizations like Monsanto, who are trying to control our 
food source for their own profit. A union of truly free and 
unassociated individuals needs to hold them accountable. What good is 
any other legislation if greed and unbridled science dominates farming? 
Protect the bees, limit Monsanto, legalize raw milk and protect farmers 
from frivolous patent law suits. If the FDA won't rise to the occasion, 
the state must do it. I wish America would ban GM crops.
                                 ______
                                 
                        Comment of Susan Silber
    Date Submitted: Friday, May 18, 2012, 1:19 p.m.
    City, State: Berkeley, CA
    Occupation: Environmental Educator
    Comment: We need more organic produce, and to support local 
farmers! Our farm bill needs to reflect our need to provide nutritious 
organic produce to our children!
                                 ______
                                 
                      Comment of Amy Silberschmidt
    Date Submitted: Friday, May 18, 2012, 3:13 p.m.
    City, State: St. Paul, MN
    Occupation: Medical Student
    Comment: We need a farm bill that promotes healthy eating. It no 
longer makes sense to subsidize corn and not apples (or other healthy 
foods). I would love to see incentives for organic farms that keep our 
environment and our farm workers healthy. Subsidizing corn to make 
unhealthy food cheap is one major factor driving obesity and related 
health complications in our country. As a future physician, I can rail 
all I want at patients to lose weight. I can ``raise awareness'' about 
health disparities and poor access to healthy food. But to really help 
people be healthy, we need to make it accessible and affordable. And 
that means changing the farm bill.
                                 ______
                                 
                       Comment of Thomas Silliman
    Date Submitted: Wednesday, May 16, 2012, 10:24 a.m.
    City, State: Enumclaw, WA
    Producer/Non-producer: Producer
    Type: Dairy
    Size: Less than 50 acres
    Comment: Dear Sirs,

    I would like to see a farm bill that limits the payout to absentee 
farm owners and corporations. The current system seems to benefit 
corporations with lobbyist power. I think it is important to provide 
help for small family farms. Organic and traditional farms need 
support. Help with loans, insurance, and marketing are key areas. The 
reduction of subsidies for crops and industry that really need no 
assistance should be considered.

Thomas Silliman.
                                 ______
                                 
                       Comment of Patricia Silva
    Date Submitted: Friday, April 13, 2012, 12:13 p.m.
    City, State: Albuquerque, NM
    Occupation: Service Coordinator for Low Income Elderly
    Comment: I service 225 residents that are low income elderly and 
disabled who are in such great need of food. I run a food pantry once a 
month but with the need today it is not as much as is needed. Also most 
of these people are now seeing their food stamps cut right in half! 
Help us fight hunger in America--this is not an American standard to 
see people go hungry!
                                 ______
                                 
                        Comments of Sandra Silva
    Date Submitted:
    City, State: Chicago, IL
    Occupation: Senior Healthcare Consultant
    Comment: We need to encourage localized farming not factory farms, 
such that we are eating seasonal, locally grown, sustainable food. We 
need not emphasize export crops to the determent of our own population. 
Keeping farming localized means less transportation from farm to plate, 
our population gets fed healthier food and we do not need to import 
basic food for our population. Also less petrol products and less 
antibiotics used in localized farming allowing farm animals to grow as 
nature intended. Also more people are employed on smaller local farms 
than on factory farms. More sustainable, healthier for everyone 
concerned.
    Date Submitted: Monday, May 14, 2012, 10:38 a.m.
    Comment: We need to fix our food distribution system such that we 
produce real food locally, in a affordable, sustainable, humane and 
environmentally safe for the Earth and all species of the Earth. If we 
were to produce food closer to the population that consumes it we would 
not overuse petroleum products in transport. We need to stop 
overemphasizing export crops, so we do not have to import basic food 
for our own population. Every one of our population is worthy of 
respect and to have his/her basic needs met.
    Date Submitted: Saturday, May 19, 2012, 11:34 a.m.
    Comment: I see the effects of questionable food stuffs on seniors, 
i.e., high blood pressure, high cholesterol, heart disease, diabetes, 
if we were to stop subsidizing the corn and soy bean growers to grow 
GMO corn or soy and those growers would grow their crops as they did 
before massive petroleum fertilizers and GMO technology became 
pervasive, we could save our topsoil, grow more nutritious corn and 
soybeans and have a healthier population.
                                 ______
                                 
                      Comment of Louise Silverman
    Date Submitted: Friday, May 18, 2012, 3:12 p.m.
    City, State: North Myrtle Beach, SC
    Occupation: Retired/Part-Time Health Consultant
    Comment: As someone interested in helping people achieve and 
maintain optimal health I understand the importance of nutrition and 
the importance of organic farming and sustainable practices.
                                 ______
                                 
                      Comment of Dorothy Simkanin
    Date Submitted: Friday, May 18, 2012, 9:34 p.m.
    City, State: Lackawanna, NY
    Occupation: Quality Control Inspector
    Comment: You Are What You Eat. Genetically altered, growth 
hormones, and massive doses of antibiotics have been introduced into 
our food. I personally would prefer organically grown food. Farmers who 
grow organic produce and cattle should be rewarded and supported by us 
and our government. It is a fact that we are what we eat, how much of 
this altered food will we eat before we become genetically altered 
also?
                                 ______
                                 
                       Comment of Connie Simmons
    Date Submitted: Friday, May 18, 2012, 12:45 p.m.
    City, State: North Port, FL
    Occupation: Retired
    Comment: Please support organic and family farmers. We need to stop 
subsidizing huge mega farms that are destroying America and our 
farmland. Stand up for all Americans. Thank you.
                                 ______
                                 
                       Comment of Katrina Simmons
    Date Submitted: Sunday, May 20, 2012, 12:30 a.m.
    City, State: Sarasota, FL
    Occupation: Executive Assistant
    Comment: Locally grown produce is critical to our survival. Both as 
a community and as a healthy country.
                                 ______
                                 
                       Comment of Keri J. Simmons
    Date Submitted: Friday, May 18, 2012, 2:35 p.m.
    City, State: San Jose, CA
    Occupation: Graduate Student, Master of Public Health Program, San 
Jose State University
    Comment: Dear Congress,

    I am a graduate student of the Master of Public Health program at 
San Jose State University. I am writing because I believe all Americans 
should have equitable access to healthy, organic, and affordable foods 
produced in a sustainable manner. As a young adult looking to have a 
future and family, I am discouraged due to America's current food 
system. American people have spoken--we demand food reform. We must 
feed our children only the most nourishing foods to expect America to 
continue as a powerful global contributor. For these reasons, I ask you 
to please join me and millions of Americans in supporting the 
following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

            Thank you,

Keri J. Simmons.
                                 ______
                                 
                         Comment of Liz Simmons
    Date Submitted: Tuesday, May 15, 2012, 12:23 p.m.
    City, State: Denver, CO
    Occupation: Editor
    Comment: I'd like to urge you to use the 2012 Farm Bill to expand 
access to healthy, affordable foods, rather than reduce access to those 
who need it the most. Cutting $36 billion in SNAP is the exact opposite 
of what we should be doing. Low income people already have a tough 
enough time trying to stay healthy in this economy; are you trying to 
make it even worse?
                                 ______
                                 
                         Comment of Jeff Simms
    Date Submitted: Friday, April 27, 2012, 2:46 p.m.
    City, State: Chicago, IL
    Occupation: Human Services
    Comment: I have seen firsthand how vital a support food pantries 
and SNAP can be for working families during recessions. Please support 
funding for the Emergency Food Assistance Program (TEFAP) and the 
Supplemental Nutrition Assistance Program (SNAP) in the upcoming farm 
bill.
                                 ______
                                 
                       Comment of Lois Simoneaux
    Date Submitted: Saturday, May 19, 2012, 8:31 p.m.
    City, State: Hernando Beach, FL
    Occupation: Teacher
    Comment: Please keep food supply safe and protect small producers. 
Stop subsidies to corporations and to those not growing crops.
    Tax dollar waste starts here. Make crop insurance affordable and 
cap payouts.
    Support American family farmers, not unidentifiable, tax loophole 
using faceless corporations.
                                 ______
                                 
                       Comment of Audrey Simonson
    Date Submitted: Friday, May 18, 2012, 6:20 p.m.
    City, State: Rolfe, IA
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 301-500 acres
    Comment: Please, please keep the funding for school lunches and 
breakfasts for those kids who don't get enough food at home. Keep the 
agricultural businesses honest and let us know what their products will 
do to our general health.
                                 ______
                                 
                      Comment of Michelle Simonson
    Date Submitted: Friday, May 18, 2012, 2:26 p.m.
    City, State: Fairfax, CA
    Occupation: Education
    Comment: I know that you know the right thing to do that will 
support the best quality of food and I trust you will do it. Thank you, 
it means so much to all of us.
                                 ______
                                 
                       Comment of Dulcey Simpkins
    Date Submitted: Friday, May 18, 2012, 6:22 p.m.
    City, State: Westminster, CO
    Occupation: Research Manager
    Comment: I support the full endorsement of all provisions of the 
Local Foods, Farms and Jobs Act (H.R. 3286).
    Rather than funding entitlements for agribusiness, our nation would 
benefit far more by fully funding conservation programs, such as the 
Conservation Stewardship Program, and making sure that enrollment in 
any new insurance subsidies are tied directly to compliance with 
conservation programs.
    Our agricultural sector would also benefit from the implementation 
of all provisions of the Beginning Farmer and Rancher Opportunity Act 
(H.R. 3236), and most of all from maintaining the EQIP Organic 
Initiative.
                                 ______
                                 
                      Comment of James Simpliciano
    Date Submitted: Friday, May 18, 2012, 12:25 p.m.
    City, State: Lahaina, HI
    Producer/Non-producer: Producer
    Type: Field Crops, Specialty Crops, Vegetables, Other
    Size: 50-150 acres
    Comment: Here on Hawaii we have all our food imported, and it 
should be grown all here. We need to support our local farmers in 
growing healthy fresh food. Our soil is rich and our future farmers 
such as Mao organic farm is pioneering towards training young leaders, 
and future farmers. I too am a socially disadvantage farmer, and need 
your support.
                                 ______
                                 
                       Comment of Heather Simpson
    Date Submitted: Saturday, May 19, 2012, 11:18 a.m.
    City, State: Belen, NM
    Occupation: Teacher
    Comment: As a teacher, one of my objectives is to encourage my 
students to be responsible citizens. I believe our government should 
lead the way on supporting a farm bill that encourages and demonstrates 
what responsibility looks like in agriculture.
    Please fully fund conservation programs and make sure subsidies are 
tied directly to compliance with the conservation programs.
    Please maintain the EQIP Organic Initiative.
    Please fully endorse all of the provisions of the Local Foods, 
Farms and Jobs Act (H.R. 3286).
    Thank you for your hard work and considering making the right 
example for our children.
            Sincerely,

Heather Simpson.
                                 ______
                                 
                       Comment of Meaghan Simpson
    Date Submitted: Friday, May 18, 2012, 11:57 p.m.
    City, State: Fortuna, CA
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Vegetables
    Size: Less than 50 acres
    Comment: We want USA farm policies to rise up to the best in the 
world. The best is very safe and healthy and rooted in our strict 
certified organic farms standards such as California Certified Organic 
and Oregon Good Tilth certified organic farm standards. These standards 
include everything from the organic heirloom natural fertile seeds, the 
certified organic fertilizers, herbicides, pesticides, insecticides. 
USDA organic standards are phony as USDA has been cheating and 
perverting real certified organic standards ever since mid 1990s when 
millions of USA citizens told USDA we want certified organic foods in 
our super markets everywhere . . . And we must revoke USDA's right to 
even use ``organic'' on labels until they conform to C.C.O.F. 
standards. USDA must be mandated to tell the truth and give full 
disclosures of the commercial poison chemical products and genetically 
modified plant strains now! We need the very best quality regulations 
for inspections provided by fully reformed and trained gov agencies . . 
. do not put our safety and health inspections in the hands of private 
big ag-biz business! This has proven to be an awful bad grim policy as 
USDA foods are banned in other countries due to the ag poisons, the 
antibiotics and hormones, the very sick mad-cow-diseases and way over 
the top bacteria! USDA standards have been getting worse and worse and 
worse ever since Ronald Reagan imprudently approved private industry 
over=sight inspections over gov USDA. USDA has been negligent and lives 
are on the line. Technology is available for great testing and must be 
used. Like in the Gulf of Mexico which is very much still very 
polluted. The sea foods industry in gulf is using inspections where 
they smell the sea food sniff test for any smell of petroleum!?
    This is bad awful stupid because the poisons that are the most 
killer do not have smell or visibility.
    The green wave in USA consumers has been stating for decades that 
we want the world's best standards. We want these standards for our 
foods, and for the bees must recover from pesticides and herbicides and 
GMOs. Also ag farmers and laborers are at great risks and harms working 
in chemically polluted farms and this is why soo many people do not 
want to work in chem farms!
                                 ______
                                 
                         Comments of Gina Sims
    Date Submitted: Wednesday, May 16, 2012, 12:57 a.m.
    City, State: Chico, CA
    Occupation: Educator
    Comment: Please include these priorities:

    support local, sustainable food producers

  <bullet> continue to fund farmers' market, farm to school, and 
        beginning farmer rancher programs

  <bullet> stand up to big businesses and Stop allowing high sugar, 
        high salt, highly processed foods to our children via school 
        meals!

  <bullet> support school gardens

  <bullet> Fund organic agriculture and research
    Date Submitted: Saturday, May 19, 2012 2:06 a.m.
    Comment: Please:

  <bullet> do Not cut SNAP funds! Do not take food from hungry American 
        families.

  <bullet> fund more fresh, local, seasonal, organic foods in schools! 
        Many children eat 3 meals a day at school now, and family 
        farmers are struggling. Help create sustainable food systems so 
        communities can feed themselves.

  <bullet> fund farmers' markets, organic research, and beginning 
        farmer rancher programs.
                                 ______
                                 
                         Comment of Sandra Sims
    Date Submitted: Wednesday, May 09, 2012, 9:31 p.m.
    City, State: Brentwood, MD
    Occupation: Nonprofit
    Comment: I urge you not to cut funding for SNAP, WIC and other 
vital programs that ensure the health of our citizens.
    Do not balance the budget on the backs of working people and our 
country's most vulnerable citizens--children and the elderly.
    By repealing the Social Services Block Grant, it would be cutting 
home care and meals programs in many states and ending the only 
consistent source of state funding to help victims of elder abuse or 
neglect.
    Repealing the Prevention and Public Health Fund, means eliminating 
funding for evidence-based health promotion and disease prevention 
programs.
    Vote No on the current House budget package.
                                 ______
                                 
                         Comment of Sascha Sims
    Date Submitted: Friday, May 18, 2012, 11:32 p.m.
    City, State: Atlanta, GA
    Occupation: Fitness Instruction
    Comment: It would be possible to produce food sustainably if more 
people financially supported the cause, the same way we spend so much 
money on convenience food and fast food. Urge people to vote with their 
dollar, and support local and sustainable farming . . . and give 
farmers the support they need to do so.
                                 ______
                                 
                        Comment of Andrew Singer
    Date Submitted: Saturday, May 19, 2012, 3:18 a.m.
    City, State: Saint Paul, MN
    Occupation: Illustrator
    Comment: The farm bill needs to reward better land conservation and 
stewardship and those who produce food organically and/or with fewer 
pesticides, herbicides, chemical fertilizers and GMOs. The pesticides, 
herbicides and fertilizers are ending up in our drinking water (both 
wells and town systems) or in the Mississippi River and Gulf of Mexico, 
where they're contributing to algae blooms and marine ``dead zones'' 
where no sea life can survive. GMOs are proving to be toxic to 
beneficial insects (like butterflies and bees) and little research has 
been done to look at long term toxicity to humans (of things like corn 
that creates its own BT, a neurotoxin). Also, organic producers are 
experiencing ``genetic drift'' where pollen from GM corn is 
contaminating organic corn (or other crops) and preventing it from 
getting organic certification, particularly when it comes to exports. 
These chemical/GMO intensive agribusiness forms of agriculture are also 
much more energy/petroleum intensive.
    It's time that congress looked at more sustainable forms of 
farming. They should:

    1. Fully endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

    2. Fully fund conservation programs, such as the Conservation 
        Stewardship Program, and make sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. They should implement all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. And they should Maintain the EQIP Organic Initiative.
                                 ______
                                 
                      Comment of Kristy Singlestad
    Date Submitted: Thursday, March 22, 2012, 10:37 a.m.
    City, State: Waseca, MN
    Occupation: Food and Nutrition Student
    Comment: As future Registered Dietitian, I understand the 
importance of improving the diet of American's through increased 
consumption of healthy foods such as fruits and vegetables. And, as an 
individual who grew up on a family-owned farm, I understand the 
challenges farmers face and hard labor that goes into crop production. 
That is why I strongly support programs that bringing together these 
two shared interests. As the details of the 2012 Farm Bill are 
discussed, I hope you, too, support the assistance of programs that 
expand and promote farmers markets and the purchasing of fresh fruits 
and vegetables in schools. These programs will ultimately benefit both 
the farmer and improve the health of the nation.
                                 ______
                                 
                          Comment of Joy Sipe
    Date Submitted: Tuesday, April 24, 2012, 12:26 p.m.
    City, State: Bethel Park, PA
    Occupation: Software Engineer
    Comment: I would like to see Congress implement the proposals made 
by the National Sustainable Agriculture Coalition in their publication 
Farming for the Future: A Sustainable Agriculture Agenda for the 2012 
Farm Bill,* a copy of which can be found at the following website: 
http://sustainableagriculture.net/publications/. Thank you.
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
                                 ______
                                 
                        Comment of Cheryl Sittle
    Date Submitted: Friday, May 18, 2012, 9:56 a.m.
    City, State: White River Junction, VT
    Occupation: Senior Citizen
    Comment: Food quality and the freedom to have access to it is of 
utmost importance for quality of life and economic reasons. Bad health 
is much more expensive then high quality foods. Citizens are happier 
and more productive when they have their health and vitality.
                                 ______
                                 
                        Comment of Susan Sively
    Date Submitted: Friday, May 18, 2012, 12:25 p.m.
    City, State: Brooklyn, NY
    Occupation: Attorney
    Comment: Organic family farms are the future I want to see in this 
country, not the inhumane, environment-hostile, public heath-
threatening agribusiness I don't want to buy from.
                                 ______
                                 
                        Comment of Nels Siverson
    Date Submitted: Saturday, May 19, 2012, 3:34 p.m.
    City, State: Summerfield, FL
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: 301-500 acres
    Comment: The food industry is holding the American public hostage, 
selling us least cost products with least nutritional value at the cost 
of the environment and our national health. High fructose corn syrup, 
trans-fats, highly processed foods resulting in a population that finds 
itself on the brink of diabetes, obesity, & heart disease. How about 
subsidizing fruits, vegetables, rather than corn, soy and wheat?
                                 ______
                                 
                         Comment of Mary Sketch
    Date Submitted: Wednesday, May 02, 2012, 2:46 p.m.
    City, State: Durham, NC
    Occupation: Student
    Comment: It seems to me that to use a singular farm bill as a means 
to legislate all aspects of agriculture in the United States. After 
taking a course this year at Brown University on Sustenance and 
Sustainability, I have learned that the entire realm of agriculture and 
production cannot be encased in one definition and set of guidelines. 
Environmentally, conditions vary from region to region along with 
cultural and economic factors. This is where the issue of 
generalization across the board in the form of the farm bill comes in. 
On a more specific note, I feel that several sources of funding that 
are outlined in the farm bill do not necessarily reflect its ideologies 
and goals. For instance, it is important throughout the country to 
reinvigorate farming. Most farmers are above the age of 65 and we need 
to encourage and support the entrance of young farmers into the field. 
There is not adequate funding to support this goal and I propose that 
funding is increased for the 2012 Farm Bill.
                                 ______
                                 
                      Comment of Jennifer Skinner
    Date Submitted: Saturday, May 19, 2012, 5:18 p.m.
    City, State: Fairfield, ID
    Occupation: Caregiver, Holistic Therapist
    Comment: We live in time where the protection of the knowledge of 
how to produce healthy food and live in respect with the land is 
absolutely critical. Our modern farming methods may have produced food 
faster than ever before but at a huge cost to the quality of life and 
our environment. Cutting funding to such important programs as organic 
food research, food stamp availability, etc. only puts a nail in the 
coffin labeled ``concern for the American people'', with the nails 
driven in by corporate interests controlling our house and senate and 
the coffin being carried out for viewing by the representatives and 
senators themselves. I urge you, Mike Simpson, coming from a state that 
prides its agricultural products and family built ranches, to do 
everything to protect organic, small producers, and the choice of the 
American people to eat healthy.
                                 ______
                                 
                         Comment of Su Skjersaa
    Date Submitted: Friday, May 18, 2012, 7:24 p.m.
    City, State: Bend, OR
    Occupation: Registered Nurse, Retired, Artist, Doc. Ministry
    Comment: Please support sustainable farming and also the small 
independent farmers.
    The overtake of Monsanto and other seed and chemical companies are 
poisoning our food, waters, air and land with polluting chemicals that 
will take centuries to correct. Let's start now, save our children, 
wild life and everything that grows on the land and sea. Farm with good 
health in mind.
                                 ______
                                 
                         Comment of David Sklar
    Date Submitted: Monday, May 14, 2012, 3:27 p.m.
    City, State: Greenwood, IN
    Occupation: Nonprofit
    Comment: Many people in this country are struggling to make ends 
meet at no fault of their own. Now is not the time to cut back the SNAP 
program that is keeping millions of Americans, especially children, 
from going hungry every day. Do not cut the SNAP program.
                                 ______
                                 
                          Comment of Judy Skog
    Date Submitted: Friday, May 11, 2012, 11:35 a.m.
    City, State: Madison, WI
    Occupation: Retired Physical Therapist
    Comment: I want to eat fresh organic vegetables, fruit and cheese, 
and to eat meat and eggs from animals raised organically, with access 
to pasture every day. I want dairy products from organically produced 
milk.
    I support SARE and ATTRA and the Beginning Farmers and Ranchers 
programs. I support all the programs that support sustainable 
agriculture.
    I Do Not support subsidies for corn and cotton and wool (whatever 
the 5 were from WWII). Nor do I support subsidies for oil or fracking, 
if that plays a part in this bill.
    I strongly believe in capping the farm payments at income levels of 
$250,000. That money should go to small farmers, Not to agribusiness. 
Close those loopholes now, please. No one should get rich from farming, 
but everyone should be able to make a living at it.
    Thank you for listening. I hope you take action on the comments, 
also.
                                 ______
                                 
                      Comment of Lindsey Skrdlant
    Date Submitted: Friday, May 18, 2012, 3:09 p.m.
    City, State: Monrovia, CA
    Occupation: Graduate Student in Biomedical Sciences
    Comment: As a child of a NE 3rd District family farmer, I stay up 
to date on the latest Farm Regulations. I am troubled by many of the 
attempts to damage family farms and our arable land to cater to 
industrial agribusiness. I support the full endorsement of all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286); the 
implementation of all provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236); and the full funding of conservation 
programs, such as the Conservation Stewardship Program, and making sure 
that enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs.
                                 ______
                                 
                       Comment of Courtney Skybak
    Date Submitted: Saturday, May 19, 2012, 1:53 a.m.
    City, State: Portland, OR
    Occupation: Landscape Designer
    Comment: It is imperative that our new farm bill support small-
scale farms, and those using organic and sustainable methods. The bill 
should absolutely not support the production of GMO crops.
                                 ______
                                 
                        Comment of Ruth Slabach
    Date Submitted: Saturday, May 19, 2012, 7:29 a.m.
    City, State: Brownsburg, IN
    Occupation: Registered Nurse
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Please do not allow giant commodity farmers and insurance companies 
to walk away with billions in taxpayer dollars while putting the land, 
soil and environment at greater risk. It's time for real reform and a 
healthy organic future! Please pass a Healthy farm bill and support our 
local organic farmers!
            Sincerely,

Ruth Slabach.
                                 ______
                                 
                       Comment of Marianne Sladek
    Date Submitted: Sunday, May 20, 2012, 11:03 a.m.
    City, State: Denver, CO
    Occupation: Logistics
    Comment: I presume you are referring to a non-producer of ag 
products. I do work, and travel for a living and view ag all the time!
    Please tie soil erosion and wetland conservation to insurance 
subsidies.
    Also please continue to help farmers who are just starting out and 
small farmers.
    Please do not allow large company lobbyists to corrupt our food 
supply with greed before care. The policy of supporting greed is 
destroying our country.
                                 ______
                                 
                       Comment of Deborah Slayton
    Date Submitted: Friday, May 18, 2012, 5:06 p.m.
    City, State: Kingsland, AR
    Occupation: Small Business Development
    Comment: The Delta is continuing to lose population. In 12 Arkansas 
counties the population declined by more than 25,000. These rural 
communities cannot attract businesses. They have to have the resources 
to build new businesses, grow existing businesses and train 
entrepreneurs and employees.
    Rural development is critical. I ask that you please consider this 
as you consider the farm bill. Please continue to support the 
development and growth of small rural businesses. Give them the tools 
and resources they need to grow profitably and successfully. Thank you.
                                 ______
                                 
                         Comment of Pam Sloane
    Date Submitted: Friday, May 18, 2012, 5:23 p.m.
    City, State: Old Greenwich, CT
    Occupation: Retired Teacher, Gardening Activist
    Comment: Who benefits from current practices? Change is needed to 
insure the safety and health of our soil, of the produce that comes 
from that soil to our home tables and ultimately into our bodies. We 
may need to take a step backwards to a simpler time when smaller farms 
produced more nutritious food with no pesticides or herbicides or GMOs. 
We need to consider the exploding health costs created by our poor farm 
practices. Best practices in other countries like France and Italy need 
to be studied. We can do it. We can restore health to our food 
production if we get our priorities in order. People first, profits 
will follow.
                                 ______
                                 
                         Comment of Ann Slobod
    Date Submitted: Friday, May 18, 2012, 1:14 p.m.
    City, State: Berkeley, CA
    Occupation: Business Manager (Architecture)
    Comment: In the next farm bill, please think about long-range 
future of our country. We need clean, healthy food & agricultural 
practices to ensure our physical and economic health. The health 
consequences of standard/chemical-based and subsidy-based farming are 
detrimental to the health of all U.S. citizens.
                                 ______
                                 
                       Comment of Ceciley Slocum
    Date Submitted: Friday, May 18, 2012, 12:29 p.m.
    City, State: Providence, RI
    Occupation: Medical Field
    Comment: This is such important legislature for the health of our 
country, our land, and our children's future. Nutrition, & what we put 
in our bodies & soil, is the basis for our wellbeing or our illness as 
a society. Please understand that everyone suffers if we do not promote 
healthy living.
                                 ______
                                 
                       Comment of Helen Slomovits
    Date Submitted: Friday, May 18, 2012, 12:13 p.m.
    City, State: Ann Arbor, MI
    Occupation: Musician
    Comment: Organic and smaller farms need full support rather than 
all the money going to industrial farming. Regulations should take into 
account size--e.g., the same safety regulations for factory farms 
should not apply to small farms. If requirements and regulations will 
put small farms out of business--there's something that is wrong and 
needs to change!
                                 ______
                                 
                       Comment of Quinn Slotnick
    Date Submitted: Wednesday, May 02, 2012, 4:56 p.m.
    City, State: Missoula, MT
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: The current structure of commodity payments has caused 
overproduction, and helped large farmers put their neighbors out of 
business while costing taxpayers billions of dollars in emergency 
assistance. The newest farm bill ignores these issues. The current 
assistance of commodity farming is causing difficulties. Supporting 
diversification is important. Additionally wetland protection is being 
removed. It is essential to preserve these areas for their beauty and 
ability to provide habitat to so many species. There also needs to be a 
revamped school lunch program that includes more fresh vegetables. Keep 
up the good work.
                                 ______
                                 
                     Comment of William Slouthworth
    Date Submitted: Friday, May 18, 2012, 1:54 p.m.
    City, State: Cortez, CO
    Producer/Non-producer: Producer
    Type: Field Crops, Fruits, Poultry/poultry products
    Size: Less than 50 acres
    Comment: I've been an organic gardening and farmer since 1951 and 
recognize the clear benefits to the health of my family, our customers, 
our livestock, our soil and our water. Protect our rights as small, 
organic farmers in the face of big agricultural interests that continue 
to buy opposition in Congress to our rights.
                                 ______
                                 
                         Comment of Roger Slugg
    Date Submitted: Wednesday, May 09, 2012, 7:46 p.m.
    City, State: Sparks, NV
    Occupation: Retired Pharmacist
    Comment: I would hope that congress would at least continue food 
aid in its current form during this time of economic distress. The last 
thing we need to do right now is try to balance the budget on the backs 
of needy senior citizens and children who are nutritionally challenged. 
There is time to balance the budget later when the economy has 
recovered.
                                 ______
                                 
                         Comment of Sally Small
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Delaware, OH
    Occupation: Library Circulation Associate
    Comment: We really need a farm bill that puts the long-term health 
and well-being of All American consumer first. We must stop subsidizing 
junky stuff like high fructose corn syrup and other over-processed 
corn-based ingredients. We also need to move away from chemical-based 
agriculture to a more natural and balanced approach, that works with 
nature rather than against it. Over-dependence on pesticides is killing 
off honey bees (which are needed for proper pollination of many food 
crops), and is causing the development of chemical-resistant ``super 
weeds'' as well as dangerous soil pathogens and spontaneous abortions 
in livestock. The long-term effects of GMO products have not been 
adequately studied for safety.
    Instead the farm bill should be more supportive of small, family 
farms and organic agriculture. Policies should help increase the 
production (and variety) of fruits and vegetables, and to make these 
more affordable. Healthy food should be more affordable than the 
unhealthy often sugary, over-processed corn and soy-laced products that 
are contributing to American obesity and other costly health issues.
                                 ______
                                 
                      Comment of Marya Small, R.N.
    Date Submitted: Friday, May 18, 2012, 12:10 p.m.
    City, State: Tuckahoe, NJ
    Producer/Non-producer: Producer
    Type: Fruits, Greenhouse/nursery, Vegetables, Other
    Size: Less than 50 acres
    Comment: As an RN and cofounder of a local organic farm called It's 
About Community, I am outraged by our government's ongoing subsidizing 
of giant agricultural corporations which are ravaging the planet as 
well as the health of our citizens. We have a major obesity problem in 
our country, yet we subsidize the very food items which are 
contributing to that problem. We are threatened by the devastating 
effects of global warming, yet our food system is set up to release 
even more greenhouse gases into the air. We need a farm bill which 
works for people rather than the profits of the corporate elite.
                                 ______
                                 
                          Comment of Al Smith
    Date Submitted: Monday, April 16, 2012, 6:41 p.m.
    City, State: Galesburg, IL
    Comment: These comments were hand delivered to a representative at 
the hearing. I wish to be assured that this issue is discussed and that 
I am made aware of the committee's decision.

Hon. Frank D. Lucas,

    Sir

    I understand that you will be conducting a fact-finding session in 
Galesburg Illinois, one of Ronald Regan's boyhood homes, on March 23, 
2012.
    First, Welcome!
    Second, in the words of our beloved Carl Sandburg;

          ``I see America, not in the setting sun of a black night of 
        despair ahead of us, I see America in the crimson light of a 
        rising sun fresh from the burning, creative hand of God. I see 
        great days ahead, great days possible to men and women of will 
        and vision.''

    Third, I also see great days ahead.Fourth, would you please address 
the following facts with your committee and/or congress as a whole and 
what your committee's recommendations are going to be to correct them?
    High sugar prices harm manufacturers of candies, chocolates, and 
breakfast cereal.
    A 2006 study by the Commerce Department found that for each sugar 
industry job saved by the sugar program; nearly three food-
manufacturing jobs are lost.
    The study found that:

  <bullet> Employment in food companies that use substantial amounts of 
        sugar is declining.

  <bullet> Imports of food products that contain sugar are growing 
        because it is not competitive to make those products in the 
        U.S.

  <bullet> Numerous companies have relocated to Canada and Mexico, 
        where sugar prices are much lower.

  <bullet> Chicago, once the nation's candy manufacturing capital, has 
        lost thousands of jobs.

  <bullet> In 2004, candy maker Fannie May closed its Chicago factory 
        and Brach has moved its Chicago candy production to Mexico.

  <bullet> Michigan took a hit in 2002, when Kraft moved its 600-worker 
        LifeSavers factory to Canada in search of low-cost sugar.

  <bullet> Hershey Foods closed plants in Pennsylvania, Colorado, and 
        California and relocated them to Canada as well.

    In my opinion, the entire program should be dismantled over time. I 
think 10 years would give those affected enough time to adjust to the 
new-old idea of a free market.
            Thank you,

Al Smith, C.M.S.,
[Redacted],
Galesburg, Illinois,
[Redacted].
                                 ______
                                 
                        Comment of Barton Smith
    Date Submitted: Friday, May 18, 2012, 4:14 p.m.
    City, State: Boulder CO
    Occupation: Health Professional
    Comment: The health and wealth of our American economy is Directly 
Connected to the health of our agriculture, soil, and the quality of 
our food. Imagine Americans robust and healthy, able to work long 
hours. Contrast that to American workers with depleted soil, pesticide-
sprayed produce, calling in sick to work, and ultimately a dwindling 
economy.
    Please consider the direct, positive economic impact of supporting 
organic and local agriculture. If our workers become healthier and more 
intelligent, we ALL make money.
    Please Support the following initiatives, which directly effects 
our bottom line in terms of the energy and resourcefulness of our 
workers:

  <bullet> The Full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Throwing your Full support into these initiatives are creating 
momentum which will see a very economically rich America by working on 
the most basic level, the farms and the plates of Americans. Organic 
food takes a distracted worker doing the bare minimum for 4-6 hours, to 
a Fully competent, inspired person who is willing to work Very hard 
(even for less money) because when workers Feel good, they are much 
more likely to work harder and for longer hours and produce quality 
products and contribute to a rich economy.
    Studies have also shown that the better we Feel, the more likely we 
are to Spend and participate in a flowing economy.
    This all comes down to the quality of our food. At the farm level, 
at the kitchen table level, the higher the Quality of our food, the 
higher Quality of the work and the workplace. Please support local 
farms and organic food initiatives! We will see results 100-Fold what 
we are experiencing right now. Thank you for your support.
                                 ______
                                 
                         Comment of Bruce Smith
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Detroit, MI
    Occupation: Hospitality
    Comment: I am deeply concerned about the damage caused by the use 
of Round-Up both on the environment and health of humans exposed to it 
extremely toxic side effects.
    I also strongly believe we have a right to know if the products we 
are buying are derived from genetically engineered and genetically 
modified organisms.
    Stop supporting corporate farming over family farms.
                                 ______
                                 
                        Comment of Carolyn Smith
    Date Submitted: Wednesday, April 11, 2012, 6:06 p.m.
    City, State: Silver City, NM
    Occupation: Co-op Outreach Coordinator and Food Pantry Manager
    Comment: I urge you to increase the funding for the Federal 
nutrition programs: TEFAP, SNAP, WIC, CSFP and others in this year's 
farm bill. As manager of the Grant County Community Food Pantry, I have 
witnessed simultaneously an increase in the numbers of residents in 
need of food, most of them seniors and a decrease in the amount of 
TEFAP food available for those who qualify. No one should go hungry in 
the United States. Thank you!
                                 ______
                                 
                        Comment of Cecily Smith
    Date Submitted: Sunday, May 20, 2012, 12:31 p.m.
    City, State: Champaign, IL
    Occupation: Water Resources Specialist, Prairie Rivers Network
    Comment: To the House Committee on Agriculture:

    Thank you for your efforts on the farm bill reauthorization. It's 
well past the time for the farm bill to make sense for producers, 
taxpayers, and the environment.
    I fully support the Senate's adoption of sodsaver provisions for 
grassland conversions in their farm bill, and urge the Committee to 
maintain this important soil protection measure in the House version. 
In addition I hope the House will choose to step up and include a 
couple of other measures the Senate failed to include in their version:

    (1) Incorporate producer compliance with soil protection measures/
        other conservation program practices as a requirement for 
        participation in the crop insurance program. It doesn't make 
        sense for farmers to receive insurance payments for losses they 
        could have prevented by acting s good stewards of their land 
        and soil;

    (2) I understand funding cuts are inevitable for farm bill 
        programs. At the same time, the conservation programs the farm 
        bill has funded have saved thousands of acres of productive 
        soils and wetland and wildlife habitats that provide a number 
        of benefits to producers and taxpayers. I would request that 
        when considering where to cut funds in the farm bill, that cuts 
        in conservation programs not be disproportionate to cuts in 
        other farm bill programs.

    Thank you for this opportunity to comment.
            Sincerely,

Cecily Smith.
                                 ______
                                 
                       Comment of Christine Smith
    Date Submitted: Saturday, May 19, 2012, 3:58 p.m.
    City, State: Bridgehampton, NY
    Occupation: Artist, Landlord, Environmentalist
    Comment: Our food is so essential to our and our regions and 
country's well being, for any politician to cave in to huge food money 
interests such as Monsanto and big CAFO's and vote against it will 
bring more bad health and even hormone etc disruption to everyone. We 
are a country founded on decency which means . . . listen to the good 
science of what is healthy and what we informed consumers want! That 
will be good for the country and all of you in Congress.
            Thank you,

CC Smith.
                                 ______
                                 
                        Comment of Heather Smith
    Date Submitted: Saturday, May 19, 2012, 2:43 p.m.
    City, State: Bridgewater, MA
    Occupation: Homemaker
    Comment: Please stop subsidizing foods like corn and soy. Those 
subsidies are making us the most unhealthy country in the world.
    You say you want us to eat fruits and veggies. Put your money where 
your mouth is.
    You say you want new farmers, support them.
    You say you want people off food stamps, teach them to cook with 
basic healthy ingredients.
    You say you want a thriving economy, stop feeding the huge 
corporations more money to make us more unhealthy.
    You say you want clean food, stop attacking small farmers who are 
doing it right and start going after the big corporations who are 
causing outbreaks of deadly diseases.
    Stop bowing down to Monsanto, ADM, Tyson and all the rest. Let us 
buy what we want from whomever we want. Food freedom is a basic human 
right, not something to be governed.
                                 ______
                                 
                          Comment of Jan Smith
    Date Submitted: Friday, May 18, 2012, 2:21 p.m.
    City, State: Church Hill, TN
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: The lame fencing after storm funding was useless! Why not 
fund small farms, milk and cheesehouses, free loans with no interest 
and other problems farmers are facing, like lack of workers or being 
able to pay workers. Rebuild barns that were destroyed in the storm.
                                 ______
                                 
                        Comment of Jeremy Smith
    Date Submitted: Sunday, May 20, 2012, 10:09 p.m.
    City, State: Spearfish, SD
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. My partner and I are 
first year farmers in western SD. We are growing mixed vegetables for 
our community and trying to help develop a healthy and resilient food 
system. Neither of us grew up involved in agriculture so we are getting 
first hand experience with how difficult it is to start up a farm. As a 
young farmer and I'd like to share my support for programs that help 
the next generation of growers build strong farm businesses. As it's 
estimated that 125,000 farmers will retire in the next 5 years, it's 
absolutely critical that farm bill programs help citizens get started 
in this challenging field. I ask that the Committee endorse all of the 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Jeremy Smith.
                                 ______
                                 
                       Comment of Julianne Smith
    Date Submitted: Friday, May 18, 2012, 3:20 p.m.
    City, State: Bountiful, UT
    Occupation: Arts Marketing
    Comment: As a mom, political science scholar, and environmentally 
concerned citizen, I know that the farm bill is one of the largest and 
probably one of THE most impactful pieces of legislation. Its effects 
have long reach in to many of our economies participating entities.
    I write today about mainly two concerns: that this bill be reviewed 
carefully and amended appropriately to eliminate special subsidies for 
agricultural entities whose processes contribute to the growing 
emissions of harmful chemicals in their production methods into the 
environment and into the food we consume itself.
    I am aware and concerned also about companies like Monsanto, who 
receives subsidies, whose practices stifle natural organic farming and 
small farmers from competing fairly in the marketplace.
    I ask you to Carefully consider the over and far-reaching impacts 
of your decision in this bill, for our Earth and our future 
generations.
            Thank you,

Julianne Smith.
                                 ______
                                 
                         Comment of Julie Smith
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Alderson, WV
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: As a resident of WV and beginning farmer, I think we need 
to stop subsidizing huge industrial agribusiness and start supporting 
smaller farms, especially in our state. WV's economy could be vastly 
improved if the smaller producers were given a fair shot. Let's 
revitalize our local state economies and keep the money inside WV! Stop 
bowing to the powers of the big corps! They are not the one's who 
elected you, we are, and you are supposed to represent our interests, 
not theirs!
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Give our beautiful state a chance to shine and thrive. There are so 
many people here who are willing to do this if you just help to remove 
the barriers, or at the very least, don't set up new barriers.
    Quality local food can help West Virginia! Our economy, our health 
and our communities!
                                 ______
                                 
                         Comment of Julie Smith
    Date Submitted: Friday, May 18, 2012, 2:10 p.m.
    City, State: Lehi, UT
    Occupation: Homemaker
    Comment: I am a former college student, I supported my husband 
through dental school and now I am a stay-at-home mother raising our 
family! I feel very strongly about the food bill! I am a supporter of 
smaller farms, which are run humanely, especially in sanitary 
conditions! I want to do all I can to help us have better quality, and 
cleaner food and conditions in our country for us and our future 
children!
            Sincerely,

Julie Smith.
                                 ______
                                 
                         Comment of Kathy Smith
    Date Submitted: Friday, May 18, 2012, 12:04 p.m.
    City, State: Cleveland, OH
    Occupation: Web Designer and Gardener
    Comment: It is good to subsidize more fruits and vegetables, and 
less meat, soy and corn. It is good also to work on reducing 
monoculture crop farming and move towards farms with a variety of 
foods. Also, supporting local beekeepers is good so that bees do not 
have to be trucked across the country. Thank you!
                                 ______
                                 
                       Comment of Kristine Smith
    Date Submitted: Sunday, May 20, 2012, 1:34 p.m.
    City, State: Conneautville, PA
    Occupation: Homemaker
    Comment: Please remember the consumers and small farmers who hold 
not only a proud history in this state but are a vital part of its 
future. Please protect our ability to choose for ourselves the foods 
and products grown locally, healthfully, and sustainably.
                                 ______
                                 
                         Comment of Laura Smith
    Date Submitted: Saturday, May 19, 2012, 9:31 a.m.
    City, State: Willsboro, NY
    Occupation: Home Grower
    Comment: My vision for the future of farming in our country is one 
that grows closer to sustainable permaculture & away from damaging 
monoculture corporate factory farms that exploit the land & create 
desertification. It includes farms that do not rob the soil of its 
nutrients & replace them w/toxic chemical fertilizers, pesticides & 
herbicides. I want to be able to grow food for my family w/o fear that 
my land is being poisoned by nearby farms that sow GMO herbicide 
resistant crops. There are new studies coming out daily on the damage 
done by using the above substances. If we continue on the path of 
status quo, our land will not be able to sustain us much longer. Every 
effort should be made to promote local, sustainable farming & subsidies 
should be diverted from factory farms to the small sustainable farm. 
Studies have further shown that we can feed our nation on sustainable 
farms. Monoculture factory farming is yesterday's technology & not 
sustainable. It is deeply concerning that the corporate factory farms 
have obtained a stranglehold on Congress causing actions that have been 
damaging to the small farms. Case in point, is the plight of small 
family hog farmers in Michigan who have been having their pigs 
destroyed for fear they could escape & become feral hogs. Any breed of 
pig could escape & become a feral hog. This is a push by corporate 
factory farms to eliminate the small pig farmer. These pigs posed no 
more threat to the environment than a factory farm pig. It is 
imperative to write strong protections into any proposed legislation 
for the small family sustainable farm to be able to survive & compete 
with the corporate factory farms. The knowledge is there to create a 
sustainable future for the U.S. farm. Thank you for allowing us to 
voice our concerns!
                                 ______
                                 
                          Comment of Lee Smith
    Date Submitted: Friday, May 11, 2012, 2:23 p.m.
    City, State: Hot Springs, CA
    Occupation: Unemployed
    Comment: For far too long you have supported five ag producers and 
now our food supply is limited. I want to see more small farms, more 
organic farms, more farmers' markets. You have given the biggest food 
suppliers the right to patent food, it is a slippery slope to ownership 
of our food supply. There needs to be more diversity in our farm bill.
                                 ______
                                 
                        Comment of Leilani Smith
    Date Submitted: Friday, May 18, 2012, 9:26 a.m.
    City, State: Davenport, IA
    Occupation: Registered Nurse
    Comment: We live in this great, food producing state. Please help 
the small, local farmers be productive in so many ways to contribute 
economically to our great nation and more importantly our local 
economy! In our school we have started a Farm to School program to help 
teach kids the importance of where their food comes from. We are very 
proud and students have written letters to Michelle Obama in hopes she 
will come during campaign time so that she may speak on our behalf of 
this great program . . . start small!
                                 ______
                                 
                         Comment of LeVar Smith
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Forestville, MD
    Occupation: Mover/Driver
    Comment: Our government has continuously shown us that they have no 
desire to keep our best interest at heart. They have not fulfilled 
their duties to the people to give them life liberty and the pursuit of 
happiness but instead given us death, disease, war, and depression. If 
we are to become a stronger nation we must first be willing to deliver 
the basics. Healthy food and water to build healthy minds, body, and 
spirits.
                                 ______
                                 
                         Comment of Lori Smith
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Blue Springs, MO
    Occupation: Transition Specialist in Special Education
    Comment: Local organic farmers are more deserving of any subsidies 
than large farming operations that are abusing animals and poisoning 
our water supply with their waste and pesticide runoff. Please revise 
the farm bill to reflect and support a healthier America.
                                 ______
                                 
                         Comment of Lucy Smith
    Date Submitted: Friday, May 18, 2012, 3:37 p.m.
    City, State: Tulsa, OK
    Occupation: Shelver--Artist--Waitress
    Comment: It is my belief that bad food and bad food practice are 
ruining our country. Please vote to support local foods and organic 
foods that can help our country get healthy and independent. Less 
dependence on foreign foods and less costs, both fiscal and 
environmental, on the transport.
                                 ______
                                 
                       Comment of Madleine Smith
    Date Submitted: Friday, May 18, 2012, 4:41 p.m.
    City, State: Crestview, FL
    Occupation: Student/Mother/Wife
    Comment: Dear Sir or Madam,

    I have been informed that you are considering slashing enormous 
amounts of money towards programs that should stay intact. I understand 
the government is in a very tight spot right now, but you cannot make 
the American people vulnerable to more hardships. The slashing of funds 
from nutrition programs is mind boggling. Most families cannot provide 
for their children and rely heavily on those programs.
    Also, if you even care about this nation or your children, you 
should not get rid of direct payments to commodity farmers. Big 
agricultural farms are just no good. There are many reasons why and 
since you are part of the Agricultural Committee, I will half assume 
that you know the risks.
    I fully support and endorse all provisions of the Local Foods, 
Farms and Jobs Act (H.R. 3286). I also support fully funding 
conservation programs, such as the Conservation Stewardship Program, 
and making sure that enrollment in any new insurance subsidies are tied 
directly to compliance with conservation programs.
    The implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236).
    Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comment of Mary Smith
    Date Submitted: Friday, May 18, 2012, 6:01 p.m.
    City, State: Hotchkiss, CO
    Occupation: Retired Teacher
    Comment: My grandchildren need Pure food! You must support organic 
foods. The large corporations have failed us and do not deserve our 
money and support. The health of our people depends on the choices You 
make--so make good ones!

Mary Smith.
                                 ______
                                 
                        Comment of Michele Smith
    Date Submitted: Friday, May 18, 2012, 4:32 p.m.
    City, State: League City, TX
    Occupation: Teacher
    Comment: I am Against any cuts to organic farming, organic farming 
research, and cuts to beginning farmers. Make the cuts in the segments 
that Monsanto and other companies like them that support poisoning our 
food stuffs.
                                 ______
                                 
                         Comment of Polly Smith
    Date Submitted: Wednesday, May 16, 2012, 10:11 p.m.
    City, State: Novato, CA
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I ask that the 
Committee follow their consciences, not the `dollar'. Our system is 
corrupt, and we see the discrepancies. As our representatives, it is 
your responsibility to change this.
            Sincerely,

Polly Smith.
                                 ______
                                 
  Submitted Statement by Robert A. Smith, Senior Vice President, Farm 
                              Credit East
    Farm Credit East is pleased to submit testimony to the House 
Committee on Agriculture in regard to the 2012 Farm Bill.
    Farm Credit East serves approximately 12,500 customers in the six 
state region including New York, New Jersey, Massachusetts, 
Connecticut, New Hampshire and Rhode Island. In total we extend $4.4 
billion in credit and provide a number of financial services to help 
farm businesses be successful including consulting, payroll and 
accounting assistance, tax preparation and crop insurance. We are the 
largest lender to agriculture in the Northeast with a market share of 
farm debt in excess of 60% in the states that we serve. As a farmer-
owned cooperative and part of the national Farm Credit System. we serve 
all types and sizes of farms in our service area. The largest sector of 
our portfolio is dairy at about 25%, but we also have extensive lending 
to forest products businesses, greenhouse, nursery, fruit, vegetable, 
livestock, aquatic (commercial fishing) and farm service businesses.
    Farm Credit East has made a strong commitment to supporting young, 
beginning and small farms with special program incentives to assist 
these customers. Our Generation NeXt program is working with young 
women and men on the issues and challenges involved in transferring the 
farm from one generation to the next.
    Farm Credit East finances many operations that are involved in 
``local foods'' through direct marketing channels including community 
support agriculture (CSA), green markets and at direct farmer markets. 
We have also financed a number of renewable energy projects and work 
closely with farm businesses on value-added and renewable energy 
grants.

    Farm Credit Lending in Good and Bad Times

    Farm Credit East and the Farm Credit System continued lending 
throughout the financial turmoil of 2007-2010. We did not change our 
underwriting standards and when producers faced difficult times in 2008 
and 2009 and we stayed with them as they worked their way through the 
down-cycle.
    With this hearing in the Northeast, it is important to recognize 
that while national net farm income reached record levels in 2011, 
there are many businesses in the nursery, sod and timber industries 
which continue to be hurt as a result of the sluggish national economy 
and the problems in the housing sector, especially low levels of new 
housing construction.
    As the Agriculture Committee considers the credit title, we urge 
that no new additional regulatory requirements be placed on the Farm 
Credit System. The reality is that our lending practices are sound and 
our industry expertise, cooperative structure and strong capital levels 
(in excess of 16% risk funds) ensure that we are serving our customers 
in an effective manner focused on their long-term success and meeting 
our mission as provided in the Farm Credit Act.
    While the Farm Credit System is not seeking expanded authorities in 
2012 Farm Bill, it is important to understand that there are situations 
in which food marketing and processing businesses including some 
involved in ``local foods'' are not eligible for Farm Credit financing. 
There are also commercial fishing infrastructure businesses such as 
docking and ice providers that are essential to commercial fishing, but 
are not eligible for Farm Credit financing in the same manner that 
businesses that serve farms are eligible.

    Farm Service Agency--Loan Guarantees

    Farm Credit East and other commercial lenders work with farmers to 
use Farm Service Agency (FSA) loan guarantees in situations where the 
loan may have a weakness, but the long-term prospects for the business 
are good. With FSA loan guarantees, many farm families are able to 
obtain credit that might not otherwise be able to do so.
    In using FSA loan guarantees, we have found that some farm business 
structures prevent the farm from obtaining FSA loan guarantee even 
though the farm involved is a family business. For example, some farms 
are organized with an operating LLC and an ownership LLC. In these 
cases, the ownership LLC is not eligible for a FSA guarantee. 
Ironically, one of the reasons for the operating LLC and ownership LLC 
structure is to facilitate generational transfer. We also see a similar 
disqualification with farm businesses that are owned by a family trust. 
These FSA limitations are addressed in the Agricultural Credit 
Expansion Act of 2011 (H.R. 874 and S. 1592) and we encourage these 
provisions to be included in the 2012 Farm Bill.

    Risk Management--Importance of Crop Insurance

    The Farm Credit System supports a strong crop insurance program as 
an important part of the necessary risk management tools that today's 
farm businesses need. Farm Credit East in conjunction with four other 
Farm Credit institutions owns Crop Growers LLP, a crop insurance 
agency. We entered the crop insurance business to ensure that more 
growers throughout our region had access to crop insurance.
    Although we have been able increase crop insurance availability and 
usage, the reality is that the Northeast remains an under-served area 
for crop insurance. The diversity of crops grown in this area has meant 
that some producers do not have workable crop insurance products or in 
some cases funds have been inadequate for some pilot program efforts. 
RMA needs to aggressively work with the Northeast farm community and 
insurance companies on products that will work for a greater variety of 
Northeast farm products and farm businesses.
    Over the past 18 months there has been considerable interest in the 
LGM-Dairy (Livestock Gross Margin crop insurance for dairy farmers). 
For some farmers this has been a good tool to manage price and input 
cost risk by locking in margins. Unfortunately many producers who tried 
to sign up for LGM-Dairy program were denied because funding levels 
were not available.
    Crop insurance is important in the Northeast for many specialty 
crops including apples, grapes and vegetables as well as corn, corn 
silage, and soybeans. The recently agreed to Standard Reinsurance 
Agreement (SRA) developed by USDA included a provision that if 
unaddressed will have a very negative impact on crop insurance for 
specialty crops. For the first time, this SRA included a cap on 
commissions paid to agents. While we understand the intent, the 
application of this cap has had a disastrous impact on crop insurance 
agencies that serve specialty crops--following the establishment of the 
cap, the price of field crops increased dramatically while price of 
specialty crops remained level. The net effect of the commission cap 
with increasing row crop prices has been to shift agent commissions 
from those that serve specialty crops to those that serve row crops 
without regard for the effort made to serve producers. Congressional 
action in the farm bill to address this situation is necessary to 
ensure continuation of crop insurance for specialty crop growers.

    Investments in Rural America and FarmStart

    Under the Farm Credit Act of 1971, Farm Credit System institutions 
are authorized to make mission-related investments, subject to the 
approval of the Systems' regulator, the Farm Credit Administration 
(FCA). Farm Credit has been making mission-related investments since 
1972 when FCA approved the System investing in farmers notes. Since 
then FCA has authorized mission related investments in USDA-guaranteed 
obligations and other rural investments approved on a case by case 
basis. As of March 2011, the Farm Credit System had approximately $631 
million in rural community investments.
    As a result of the Investments in Rural America program, Farm 
Credit East in conjunction with CoBank established FarmStart in 2006. 
Yankee Farm Credit became part of this program in 2011. The FarmStart 
program allows for us to serve start-up farm businesses that would 
otherwise not be able to obtain commercial credit. Through FarmStart we 
make investments for working capital of up to $50,000 in these 
businesses for a 5 year period. Our specially trained FarmStart 
Advisors work with each FarmStart customer on their financial planning 
to help these young farmers stay on track toward to achieve their 
business objectives and to establish a positive business and credit 
history. Since inception of this program in 2006, we have nearly 90 
FarmStart farms.
    Another rural investment made by Farm Credit East was for the 
establishment of the Genesee Valley Agri-Business Park in Batavia, New 
York--a shovel ready facility for agriculturally related businesses. 
The park recently attracted two new dairy processing (yogurt) 
businesses creating jobs and economic activity in western New York.
    It is anticipated that FCA may take action this year on a 2008 
proposed rule to provide specific criteria and portfolio limits for 
Farm Credit System ``Investments in Rural America''. We encourage the 
House Agriculture Committee to be supportive of the Investments in 
Rural America program and not do anything that would limit the Farm 
Credit System's efforts in this area.

    Final Note

    Northeast agriculture has both unique opportunities and challenges. 
We are seeing location of new milk processing facilities to meet 
consumer demands, good markets for fresh fruits and vegetables and a 
growing interest in buying and producing ``local foods.'' With strong 
earnings and capital, Farm Credit East is well positioned to serve 
Northeast agriculture as producers grow to serve customer needs.
    It is important to note that Northeast agriculture is not without 
significant challenges including the negative impact to many industry 
sectors from the sluggish housing market and the lack of a workable 
agricultural guest worker program. Our country's failure to establish 
an effective agricultural guest worker program threatens the future of 
labor intensive agriculture and tens of thousands of jobs for American 
citizens in the Northeast. If as a country we fail to find a workable 
solution to enable labor-intensive agriculture to maintain the 
necessary workforce, we will see another part of our economy (dairy, 
fruit, vegetable and other specialty crops) move offshore where 
barriers to entry for new agricultural enterprises are minimal.
    Farm Credit East and other Farm Credit institution share a strong 
commitment to serving agriculture and in making the right decisions to 
serve our customer-members for generations to come. We thank the 
Agriculture Committee for the decision to hold a hearing in Northeast.

Robert A. Smith,
Senior Vice President,
Farm Credit East,
Cobleskill, NY.
                                 ______
                                 
                         Comment of Sandy Smith
    Date Submitted: Monday, May 14, 2012, 10:34 p.m.
    City, State: Kannapolis, NC
    Occupation: Housekeeper
    Comment: We need to support our farmer s in growing healthy food 
that has not been genetic modified. This putting farmers out of 
business is crazy they have valuable knowledge that is important to our 
future. No company should own a patent on a seed. I feel I should have 
food that I feel was grown with no pesticides and animals that were 
raised eating what God created them to eat.
                                 ______
                                 
                        Comment of Sheila Smith
    Date Submitted: Friday, May 18, 2012, 3:21 p.m.
    City, State: Salinas, CA
    Occupation: Psychotherapist
    Comment: We need agricultural policy that is good for the Earth and 
good for the majority of the people. This means supporting small and 
organic production of crops and food animals. We need to stop 
subsidizing corn and tobacco and mega-farms.
                                 ______
                                 
                        Comment of Shelby Smith
    Date Submitted: Friday, May 18, 2012, 9:42 a.m.
    City, State: Decatur, GA
    Occupation: Medical School Staff
    Comment: I work in Atlanta, GA at Emory School of Medicine, which 
trains young doctors who will be the future caretakers of this nation. 
One of my big concerns is the amount of preventable diseases that 
today's doctors are not able to treat due to a broken food system.
    Author Chris Sayer says that our food system isn't actually 
broken--it's working as it has been designed. He writes:

          ``Our system of subsidies and incentives in food production 
        evolved over decades, but it did so with a very clear primary 
        goal: More calories, less cost. It is hard to find a better 
        example of a system that has evolved so successfully to fulfill 
        its original purpose. But like Mickey Mouse's broomstick in The 
        Sorcerer's Apprentice, our food system seems to have taken on a 
        life of its own. An interesting historical irony: One of the 
        incentives for the cheap calories policy was the discovery at 
        the dawn of World War Two that a large number of applicants for 
        military service were underweight. Oh, how things have changed. 
        One of the leading reasons for disqualification among modern 
        recruits: obesity. The system has done all that we asked and 
        more. Too much more.
          Why has this system been so persistent? Often the blame is 
        placed on large agribusiness. They play a role to be sure, but 
        they are as much a byproduct as a cause. They didn't create the 
        system; the system created them. By rewarding high volume and 
        low price, our current food system is built to favor economies 
        of scale above all else. The more centralized and homogenized a 
        producer becomes, the better they compete. They grow more 
        successful, and in turn they encourage the system to cater to 
        their strengths. And so the cycle continues.
          But the resiliency of this system isn't derived from its 
        multi-billion dollar benefactors. It is the simplicity of its 
        mandate. More calories, less cost. Just try to find a more 
        concise mission statement.''

    This system has spawned new health crises, and as the committee 
considers the 2012 Food and Farm Bill, I urge you to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                        Comment of Stacie Smith
    Date Submitted: Saturday, May 19, 2012, 12:20 p.m.
    City, State: Medford, OR
    Occupation: Self-Employed Artist
    Comment: My son operates a small organic farm in southern Oregon. 
This has opened my eyes to the importance of the House Agriculture 
Committee. I encourage the Committee members to be in alliance with 
small organic farming operations by supporting the full finding of 
conservation stewardship programs and by fully endorsing all provisions 
of HR 3286. I urge this Committee to Stop cutting funding for organic 
research. Small organic farms are our future.
                                 ______
                                 
                       Comment of Stefanie Smith
    Date Submitted: Saturday, May 19, 2012, 8:39 a.m.
    City, State: Toms River, NJ
    Producer/Non-producer: Producer
    Type: Dairy
    Size: Less than 50 acres
    Comment: As a small producer of food products, I strongly urge you 
to consider that family farms are the backbone of the food supply. 
There are less cases of disease and if there is a problem it's much 
more easily traced to the source. We need to continue to fund beginning 
farmers and we need to fund organic research. Soil management and 
ecology are two things that will create sustainable agriculture.
    I would also like to see you fully support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I would also like see place limitations on crop insurance subsidies 
and to re-attach soil erosion and wetland conservation requirements to 
crop insurance programs. Without this the program is just a giveaway to 
wealthy corporate farms that don't need more taxpayer money.
    Thank you.

Stefanie Smith.
                                 ______
                                 
                         Comment of Terra Smith
    Date Submitted: Friday, May 18, 2012, 9:58 a.m.
    City, State: Fort Collins, CO
    Occupation: Student
    Comment: The next farm bill should incorporate more benefits for 
small, local farms and also provide subsidies for farms that are 
transitioning to organic/biodynamic agricultural practices. Subsidies 
to huge farms using GMOs and environmentally degrading practices should 
no longer receive subsidies.
                                 ______
                                 
                        Comment of Theresa Smith
    Date Submitted: Sunday, May 20, 2012, 12:39 a.m.
    City, State: Aptos, CA
    Occupation: Dietitian
    Comment: I care about what I eat and the ones I love eat more than 
the bottom line of big agra corps. Please, if your going to subsidize 
anything let it be real foods--fruits, veggies non GMO grains etc. . . 

    I will be watching the arguments and outcomes of this farm bill 
closely and vote accordingly. Food and health are my issues!
            Thank you,

Theresa Smith.
                                 ______
                                 
                         Comment of Traci Smith
    Date Submitted: Friday, May 18, 2012, 2:42 p.m.
    City, State: Long Beach, CA
    Comment: We cannot sustain ourselves on wheat, corn and soy alone. 
Please come up with programs that help non-corporate farmers grow 
diverse crops that would bring down the overall cost of the fruits and 
vegetables that our country so desperately needs.
    Don't line your pockets with corporate Ag dollars. Please think 
about that this country really needs. Monsanto doesn't need more 
corporate tax breaks and incentives to produce more poisonous 
genetically modified corn and soy.
    Thank you.
                                 ______
                                 
                         Comment of Tracy Smith
    Date Submitted: Thursday, April 19, 2012, 7:24 p.m.
    City, State: Chicago, IL
    Occupation: Attorney
    Comment: It is critical that we not cut nutrition funding. The 
entitlement aspect of SNAP has allowed the program to expand during 
this long and deep recession, lifting millions of people out of 
poverty. TEFAP funding should be tied to unemployment numbers as well 
as market prices so that it can provide emergency food assistance 
during times of economic downturn. Congress should clarify that the 
Secretary of Agriculture has the discretion to purchase bonus commodity 
product in order to respond to nutritional needs. Hunger is a problem 
that is not acceptable in our country. Private giving is inadequate to 
meet this pressing need.
                                 ______
                                 
                        Comment of Victor Smith
    Date Submitted: Friday, April 27, 2012, 1:38 p.m.
    City, State: Pleasant Hill, CA
    Occupation: Disabled
    Comment: The U.S. needs to move toward increasing support for 
organic farming. Pesticides are becoming increasingly ineffective, are 
killing bees, polluting streams, rivers, groundwater.
    Support for GMO's should be eliminated. They are dangerous to 
humans and wildlife. They have produced no increase in crop production.
                                 ______
                                 
                   Comment of Patryce A. Smith, Ph.D.
    Date Submitted: Friday, May 18, 2012, 12:43 p.m.
    City, State: Collinsville, OK
    Occupation: Holistic Natural Health Consultant
    Comment: Enough . . . really?
    It is Past time to Stop assisting the over sized conglomerates that 
pretend to be Farmers . . .
    Help the Organic farmers . . . those that are starving in this 
country of ours . . . due to the horrible chemicals that are allowed to 
be put on what ``they'' refer to as food! Really enough . . . What do 
you think you all are going to eat when there are no other choices for 
you & your families but the chemical filled soils you are allowing & 
assisting out there in farm lands?
    Sad, sad, sad for sure. Shame on you . . .
                                 ______
                                 
                       Comment of Molly Smollett
    Date Submitted: Saturday, May 19, 2012, 11:43 p.m.
    City, State: Las Vegas, NV
    Occupation: Indep. Filmmaker
    Comment: We need a long awaited organic farm bill. Our country has 
a history of small farms. We must support the small family farmer. This 
is what made our country strong. To go against this tradition, will 
hurt us terribly.
                                 ______
                                 
                       Comment of Gregory Snader
    Date Submitted: Friday, May 18, 2012, 12:54 p.m.
    City, State: Kalamazoo, MI
    Occupation: Graphic Designer
    Comment: I feel that the U.S. farm bill policy should focus on 
providing subsidies that encourage the production of healthy food that 
is easily accessible by people of all income levels and for diversity 
of crops. I feel that the support for small-scale, diverse agriculture 
is the most stable and sustainable course for American agriculture. 
Additionally I feel that the most prudent course of action would be to 
give additional support to farmers who farm diversely, particularly in 
the use of open-pollinated seed varieties as opposed to genetically 
modified varieties. I do not feel that genetically modified seed 
varieties offer any additional benefit in production of food and do 
more harm by limiting the supply of seeds to several large companies, 
thereby encouraging a lack of diversity which creates profit now in 
exchange for an untenable future.
                                 ______
                                 
                         Comment of Ruth Snedic
    Date Submitted: Saturday, May 19, 2012, 8:20 a.m.
    City, State: West Allis, WI
    Occupation: Retired
    Comment: I want to see small farmers and organic farmers receive 
the help they need to give us good food. Take the subsidies away from 
the large corporate farms and use those monies for the small farms.
                                 ______
                                 
                       Comment of William Snider
    Date Submitted: Friday, May 18, 2012, 7:51 p.m.
    City, State: San Diego, CA
    Occupation: Retired
    Comment: The highest quality, most nutritious food available in San 
Diego comes from local small farms. Many of these farmers are working 
with schools to improve lunches. Please do everything you can to 
support their efforts.
                                 ______
                                 
                     Comment of Susan Snipes-Wells
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: Morrisville, PA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: 50-150 acres
    Comment: As a small producer, the EQIP program and the Conservation 
Stewardship Program have been helpful to our farm in increasing revenue 
and providing jobs. We are an oasis in our community as a farm that is 
open to the public and provides locally grown food. Government support 
of the programs we provide has huge benefit to the local community as a 
food source, an oxygen source, a stream water filtering source, and to 
the local economy. Our farm bill should support small local 
agriculture. Locally supported business keeps local dollars spent 
within the local economy. This is government money well spent!
                                 ______
                                 
                        Comment of James Snively
    Date Submitted: Friday, May 18, 2012, 5:38 p.m.
    City, State: Smithsburg, MD
    Occupation: Retired
    Comment: As profitable as monopolistic agribusiness undoubtedly is, 
the rest of us can't eat their profits. Organic growers deserve the 
Federal support that is currently monopolized by agribusiness.
                                 ______
                                 
                       Comment of Jerry Snodgrass
    Date Submitted: Thursday, March 22, 2012, 7:10 p.m.
    City, State: Geneseo, IL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 500-999 acres
    Occupation: Executive Board, North Central Region, National 
Association of Conservation Districts
    Comment:
National Association Of Conservation Districts Statement
March 23, 2010

House Agriculture Committee
Farm Bill Hearing

    My name is Jerry Snodgrass. I am a corn and soybean farmer from 
Congressman Schillings Congressional District. I live near Geneseo, IL 
about sixty miles northeast of here. Today I am representing the 
thoughts and ideas of the National Association of Conservation 
Districts. 3,500 Conservation districts cover every county in the U.S. 
and its Territories including all major metropolitan areas. We have 
117,000 district directors in these counties. These Soil and Water 
Conservation Districts were formed in the 1930's as the result of the 
Dust Bowl. I have been a local district director for 23 years and am 
currently Chairman of my district in Henry County. I serve on the 
Executive Board of the Illinois Association. I presently serve on the 
National Association of Conservation Districts Executive Board 
representing the eight Midwest states and I am on the NACD Farm Bill 
Task Force.
    Soil and Water Conservation Districts are the local authority to 
set work priorities and help producers implement practices with 
accountability. We are the local link between producers and the Natural 
Resource Conservation Service to implement conservation throughout 
America. We work not only with farmers and ranchers but with Urban 
people as well. In my district we worked with NRCS staff as part of an 
airport expansion plan to help with erosion control during construction 
and with water retention and drainage after the project was completed. 
The conservation districts in the Chicago Illinois area did the same 
only on a much larger scale when O'Hare Airport recently expanded in 
that city.
    NACD appreciates the House and Senate Ag Committees using common 
sense and working together for a farm bill for the Super Committee. Any 
additional cuts to conservation programs above the $23 million that 
were recommended will put the viability of conservation programs at 
risk.
    We can see that conservation practices have worked for decades. 
They have kept soil in place and nutrients out of our drinking water 
and we must continue these practices. We cannot possibly think that we 
can let conservation take a vacation and then come back in another farm 
bill in the future and try to play catch up. The cost of conservation 
projects today maybe much less than what future costs could be, plus 
the loss of soil and nutrients can never be replaced at any cost. My 
district has encouraged many local producers to put in waterways and 
buffer strips using the Continuous CRP and also to seed very highly 
erodible ground into the 10 year CRP program. Our conservation district 
has encouraged livestock producers to us EQIP money for waste handling 
projects. Everyone understands the current financial crises in this 
country but we must also look at the long-term investment in 
conservation and the good it will do.
    NACD supports the consolidation of programs in Title II of the next 
farm bill. Individuals and private landowners will benefit from 
consolidation when programs are easier to access, manage, and 
understand. With most producers having access to electronic 
communications more farm programs could possible have pre approval 
applications online. This would ease the amount of time NRCS staff 
would need to put a practice on the ground. These programs provide a 
strong risk management tool for all producers to mitigate risk for 
everyone. What is protected out in the country may very well benefit 
those in the non rural areas as well by slowing flooding and keeping 
their drinking water safe. Keep in mind that as consolidation occurs, 
funding levels Must be maintained to put conservation on the ground.
    Locally-led, incentive based conservation practices are the key to 
protecting all of our natural resources across our much diversified 
country.
    Conservation is a Long-Term investment that we must make today to 
avoid escalating costs of making repairs in the future.
    Thank you, for your time.

Jerry Snodgrass,
[Redacted],
Geneseo, IL,
NACD Executive Board Member.
                                 ______
                                 
                        Comment of Janet R. Snow
    Date Submitted: Friday, May 18, 2012, 7:20 p.m.
    City, State: Presque Isle, ME
    Occupation: Retired
    Comment: Please stop subsidizing the corporate agribusinesses and 
support organic research and organic farming that is being destroyed by 
Monsanto, et al. For the health of all of us limitations and reforms 
must be placed upon corporate agribusiness. Protect the hungry children 
and poor people by NOT allowing the Food Stamp program to be defunded. 
I fully support Bills H.R. 3286 and H.R. 3236. I am a vegan because of 
health issues and I try to buy organic food. Not only is it difficult 
to find where I live but the cost is prohibitive. Please subsidize the 
organic farmers who really need it and not those who make billions in 
profits. Thank you.

Janet Snow.
                                 ______
                                 
                         Comment of Ann Snyder
    Date Submitted: Friday, May 18, 2012, 2:10 p.m.
    City, State: Ashwood, OR
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 301-500 acres
    Comment: Dear Ag Committee,

    Please maintain, and if possible increase the support for, for 
family farms, sustainable agriculture and nutrition programs. If you 
make cuts anywhere, please do it in big agribusiness and big commodity 
food subsidies.
    This year there has already been a noticeable increase in the use 
of nutritional assistance card at farmers markets. This is a win-win 
situation for all parties. Please keep funding these types of programs 
and cut the big Ag ones that are eventually a lose-lose situation.
                                 ______
                                 
                        Comment of Denise Snyder
    Date Submitted: Friday, May 18, 2012, 2:08 p.m.
    City, State: Honolulu, HI
    Occupation: Retired
    Comment: Please phase out our government subsidies to GMO foods and 
replace them with subsidies for organic fruits, vegetables, grains, 
legumes.
    These GMO foods and the chemicals produced in them and used on them 
are polluting our air, water, and land. These corn and soy crops take 
up almost \1/2\ our ag land that is in production in the USA and these 
foods are used in over 85 percent of the processed foods which are also 
fueling our obesity epidemic. These foods are also fed to factory-
farmed animals which are also causing tremendous amounts of pollution, 
animal suffering, and health problems in humans.
    Time to subsidize what is good for us and tax what is making us, 
and our land, sick.
    Thank you for reading this. Please do the right thing.
                                 ______
                                 
                       Comment of Patrick Snyder
    Date Submitted: Friday, April 27, 2012, 2:49 p.m.
    City, State: Phoenix, AZ
    Occupation: HR Director
    Comment: My parents were raised on small farms in Illinois so I 
spent most summers helping on my grandparent's farms. The farmers in my 
family always took pride in producing food to feed this country. 
America is the richest country in the world and one of the largest 
growers of food so how can hunger be so prevalent in the U.S.? When 1 
in 4 children go to bed hungry at night in this country, we have a real 
problem and as an American with farm roots I am embarrassed by this 
fact. Congress needs to get their priorities straight and ensure that 
the citizens primary needs are met before focusing on anything else. 
Hunger in America needs to be addressed realistically at all levels and 
programs tied to the farm bill need to be properly funded. Thank you.
                                 ______
                                 
                      Comment of Patricia Sobczyk
    Date Submitted: Saturday, May 19, 2012, 2:38 a.m.
    City, State: Oak Creek, WI
    Occupation: Retired Clerical Worker
    Comment: I prefer clean food, locally grown, non-GMO. I would like 
to be able to choose the food I eat. The farmers need to be free to 
grow their crops and raise their animals as they see fit. If we need a 
farm bill it would be to order the government out of our farms and 
leave people in peace that choose to live off the land. It would also 
allow me to choose raw milk and other products that are being 
confiscated by our government.
                                 ______
                                 
                        Comment of Stephanie Sok
    Date Submitted: Friday, May 18, 2012, 9:49 p.m.
    City, State: Duluth, GA
    Occupation: Student
    Comment: The bottom line is we need to work towards more 
sustainable agricultural practices. I fully endorse all provisions of 
the Local Foods, Farm and Jobs Act.
                                 ______
                                 
                        Comment of Linda Solomon
    Date Submitted: Sunday, May 20, 2012, 7:46 p.m.
    City, State: Emporia, VA
    Occupation: Retired Teacher
    Comment: I believe we need to support small, and organic farming 
with an emphasis on good nutritional value, safety and local production 
as much as possible. Emphasizing genetically modified foods with all of 
the ensuing problems and cutting out small, longtime farmers is wrong 
and heading in the wrong direction. We do not need chemical companies 
in charge of out food.
                                 ______
                                 
                      Comment of Samantha Sommers
    Date Submitted: Saturday, May 19, 2012, 1:43 p.m.
    City, State: Los Angeles, CA
    Occupation: Graduate Student
    Comment: I would like the farm bill to prioritize local, organic 
farming. I would particularly like there to be an emphasis on 
supporting young farmers purchase their own land and learn the skills 
necessary to run a successful farm and business.
                                 ______
                                 
                        Comment of Joanna Soren
    Date Submitted: Friday, May 18, 2012, 3:49 p.m.
    City, State: North Bend, WA
    Occupation: Homemaker
    Comment: Kill the subsidies for commodities and level the playing 
field for food. Fresh fruit and vegetables should be readily available 
and cheaper than processed food.
                                 ______
                                 
                        Comment of Mary Sossong
    Date Submitted: Saturday, May 19, 2012, 3:47 p.m.
    City, State: Princeton, ME
    Occupation: Teacher
    Comment: I want this bill to support family farms, food co-ops, 
farmers' markets--especially providing an easy access using Maine Food 
Stamps (EBT), organic methods, and nutritious food programs.
                                 ______
                                 
                       Comment of Roxanne Sotelo
    Date Submitted: Tuesday, May 15, 2012, 6:15 p.m.
    City, State: Whittier, CA
    Occupation: Food Server
    Comment: Please subsidize organic food production to the same 
extent as conventional agriculture. Doing so would bring down the cost 
of organic produce while promoting a safer method of growing food. 
Growing organic benefits the planter, grower and consumer.
                                 ______
                                 
                      Comment of Michael Southard
    Date Submitted: Friday, May 18, 2012, 7:38 p.m.
    City, State: Springfield, OR
    Occupation: Retired
    Comment: The U.S.A. needs sustainable agriculture with less 
dependence on pesticides, herbicides and no use of genetically modified 
crops or livestock. We as a nation must maintain a place for the small 
independent producer, particularly those who farm organically. There 
will always be a role for ``Big Agriculture'' when it comes to feeding 
America but that role must not rely on the excessive use of pesticides 
or herbicides and should not include any use genetically modified 
plants or animals. In addition ``Big Agriculture'' should not threaten 
to sue independent producers or scientific investigators who speak 
against the use of genetically modified crops or livestock.
                                 ______
                                 
                         Comment of David Souza
    Date Submitted: Saturday, May 19, 2012, 1:09 p.m.
    City, State: Belington, WI
    Occupation: Retired
    Comment: I support the increased emphasis on organic provisions in 
the farm bill. The utilization of organic agricultural practices not 
only harks back to our country's heritage but is better for our 
environment, health, and food security. The current focus on 
subsidizing failing agricultural methods only encourages the 
destruction of our environment, contributes to ever increasing health 
problems, and endangers the security of our food supply.
                                 ______
                                 
                        Comment of Lyn Spangler
    Date Submitted: Friday, May 18, 2012, 9:30 a.m.
    City, State: Bellingham WA
    Occupation: Healthcare Provider
    Comment: I have long been ashamed of our country's proclivity to 
subsidize large corporate and Family Owned, Privately Held 
agribusinesses that use huge amounts of natural resources producing, 
harvesting, and shipping our food and commodity crops (like GM corn) 
instead of helping true family owned farms that allow for greater food 
security by keeping production of real food closer to consumers.
                                 ______
                                 
                        Comment of Suanne Sparks
    Date Submitted: Friday, May 18, 2012, 3:39 p.m.
    City, State: Laguna Woods, CA
    Occupation: Retired/Fitness
    Comment: I am appalled at the priorities set in Congress that do 
not serve the best interests of The People, whom you are elected to 
represent. Food is a basic requirement and must be protected from 
motives of greed that corrupt the market and threaten human health.
                                 ______
                                 
Submitted Letter by R. Scott Spear, Board President, Sequoia Riverlands 
                                 Trust
May 2, 2012

Hon. Dennis Cardoza and Jim Costa,
United States House of Representatives,
Washington, D.C.

    Dear Congressman Cardoza and Congressman Costa:

    Sequoia Riverlands Trust recognizes and thanks you for your 
tireless work on the farm bill.
    Sequoia Riverlands Trust (SRT) is a regional, nonprofit Central 
California Land Trust dedicated to conserving the natural and 
agricultural legacy of the Southern Sierra Nevada and San Joaquin 
Valley. The wealth, productivity and beauty of this land inspire our 
work to conserve it for future generations.
    SRT believes it is beneficial to share our ``boots on the ground'' 
perspective and how the FRPP ranking criteria affects Fresno, Kings and 
Tulare Counties.

  <bullet> The criteria places small family farms at a disadvantage in 
        the southern San Joaquin Valley

  <bullet> That ranking criteria also ignores the realities of the 
        southern San Joaquin Valley. The West side of the Valley has 5 
        to 25 thousand acre farms; the East side has smaller family 
        farms ranging from 20 to 200 acres. The large size farms skew 
        the average based on the criteria putting small family farms at 
        a disadvantage for FRPP funding

  <bullet> An easement application ranks higher if it is located near 
        existing conservation land. Tulare County has no Federal or 
        state funded ag conservation land, placing the County at a 
        disadvantage in the current ranking system

    For these reasons, Sequoia Riverlands Trust supports American 
Farmland President John Scholl's statement below.

  <bullet> Evaluation and Ranking of Applications (page 199; line 16): 
        In establishing criteria to evaluate and rank applications, the 
        language requires the Secretary to emphasize, in part, support 
        for ``maximizing the protection of contiguous acres devoted to 
        agricultural use'' (page 200, line 3). We have long believed 
        that the most effective programs to protect the long-term 
        viability of agricultural lands are those that focus on 
        assembling blocks of protected land. However, there are vast 
        differences in agricultural landscapes and farm parcel sizes 
        around the country, and we are concerned that a single standard 
        for what constitutes ``contiguous acres'' may result in 
        applications that favor one region of the country over another. 
        We would encourage a clarification of this language to make 
        clear that the criteria take into account the variation around 
        the country in agricultural land use patterns.

    Current language in the Farm Bill's Grassland Reserve Program (GRP) 
requires NRCS to hold the conservation easement funded by GRP.
    Sequoia Riverlands Trust lost two conservation easement 
opportunities involving a 7 thousand acre ranch and another 14 thousand 
acre ranch. The ranchers did not want the Federal Government involved 
in their ranching operations. They refused to participate in the GRP 
program.
    If there was language in the farm bill that allowed an option for a 
nonprofit organization to hold GRP Funded Easements there would have 
been 21 thousand acres of grassland conservation in Eastern Tulare 
County.
            Sincerely,



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
R. Scott Spear,
Board President,
Sequoia Riverlands Trust.
                                 ______
                                 
                        Comment of Laura Speers
    Date Submitted: Thursday, May 10, 2012, 11:40 a.m.
    City, State: Saugerties, NY
    Occupation: Student
    Comment: I am writing this comment to urge congress to please 
protect SNAP, TEFAP, and CSFP programs under the upcoming farm bill. 
These programs are essential in the fight against hunger which is 
plaguing our country. In a country that boasts to be the most powerful 
in the world, it is unacceptable that 1 in 6 people are hungry. Please 
protect these programs. They are so important.
                                 ______
                                 
                       Comment of Juanita Speirs
    Date Submitted: Friday, May 18, 2012, 2:56 p.m.
    City, State: Bend, OR
    Occupation: Retired
    Comment: We need a farm bill that supports first and foremost the 
health of our citizens, and the sustainability of our products and 
small, local farmers. All you have to do is look around you to be aware 
that the health of the average citizen is rapidly eroding (consider the 
diabetes stats, for one) in large part because of diet. We need real, 
unaltered food, grown by farmers who practice sustainable farming 
techniques, decent food for those who are struggling financially, and 
enforced rules and regs, along with inspections that provide true 
supervision of this industry. To cut funds to any of these programs 
means an even unsafer food supply and far larger health bills down the 
line. I think the reports on the number of young people not fit to 
serve in the military due to diet-related matters ought to be enough to 
tell you this is not just a fringe group of sprout eaters who want and 
expect change.
    This is a national disgrace and significant security issue.
                                 ______
                                 
                        Comment of Martha Spence
    Date Submitted: Sunday, May 20, 2012, 11:39 a.m.
    City, State: Middletown, CA
    Occupation: Teacher
    Comment: I have cancer. I eat only organic non-GMO vegetables. I 
juice them every day to support my health. I would like to see a bill 
that would support these farmers and lower the cost of organic 
vegetables. I am on a fixed income and I spend $100 a week on 
vegetables.
                                 ______
                                 
                       Comment of Brenda Spencer
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Dallas, TX
    Occupation: Holistic Health Counselor
    Comment: We need an organic farm bill. Please also do not allow GMO 
foods without labeling. The future of our children and our own health 
and prosperity is at stake. Thank you.
                                 ______
                                 
                       Comment of Melissa Spencer
    Date Submitted: Friday, May 18, 2012, 9:31 a.m.
    City, State: Harrisville, NH
    Occupation: Spice Retailer
    Comment: I would love to see the next farm bill support local 
farms/farmers through programs that allow for collaboration and 
financial support. End subsidies for large-scale farming that destroys 
the environment and provides a less quality product than a small local 
farm could provide. Also, the national food program in the schools 
needs to take is teaching children about nutrition and healthy choices 
and where real food comes from . . . the ground not a can!
    Thank you.
                                 ______
                                 
                         Comment of Sarah Spica
    Date Submitted: Friday, May 18, 2012, 9:55 p.m.
    City, State: Denver, CO
    Occupation: Household Manager
    Comment: Please put organic farms and practices at the top of 
funding for the new farm bill. Organic farming practices are vital for 
the health of our land and people and need encouragement on every 
level. Thank you.
                                 ______
                                 
                       Comment of Patricia Spicer
    Date Submitted: Saturday, May 19, 2012, 12:06 p.m.
    City, State: Eugene, OR
    Occupation: Retired Educator
    Comment: The current wide-spread epidemic of obesity is only one 
evidence that there is something wrong with excessive factory farming. 
More localized and healthier methods of production are available and 
should be supported by Congress to reduce medical costs to the nation.

Patricia Spicer
                                 ______
                                 
                        Comment of Carolyn Spier
    Date Submitted: Thursday, May 10, 2012, 2:31 a.m.
    City, State: Weimar, CA
    Comment: Protect SNAP, TEFAP, and CSFP: 30 percent of client 
households with seniors indicated that they have had to choose between 
food and medical care and 35 percent have had to choose between food 
and paying for heat/utilities. We must ensure hunger-relief programs 
remain protected so that seniors who worked their entire lives continue 
to have access to these vital programs.
                                 ______
                                 
                      Comments of Melanie Spillane
    Date Submitted: Monday, April 23, 2012, 4:36 a.m.
    City, State: Gainesville, FL
    Occupation: International Food Security Sector
    Comment: It would be great if the 2012 Farm Bill would encourage 
not just domestic LRP programs, but continue its pilot program with 
USDA on an international level. It saves millions of lives, decreases 
fuel consumption and promotes local employment possibilities, in 
addition to giving participants a sense of pride in what they grow and 
eat. No
    Date Submitted: Thursday, April 26, 2012, 5:17 a.m.
    Comment: It would be great if the Farm Bill 2012 allotted more 
funding to domestic and international LRP programs as well as raised 
awareness of the benefits of local food purchases such as reduced food 
miles, spurring local economy, and overall healthier eating.
                                 ______
                                 
                      Comment of Linda Spinazzola
    Date Submitted: Friday, May 18, 2012, 12:42 p.m.
    City, State: Hamilton, NJ
    Occupation: Retired
    Comment: Save our farms! When you import foods from outside the USA 
there are no government oversight to make sure the pesticides and 
chemicals they use are safe for our consumption! By importing our 
fruits & veggies, you are not only allowing these countries to poison 
us but, bankrupting our farmers into extinction! Did you stop for one 
moment and wonder why the cancer rates are rising? Protect our people!
                                 ______
                                 
                        Comment of Gayle Spinks
    Date Submitted: Friday, May 18, 2012, 1:34 p.m.
    City, State: Costa Mesa, CA
    Occupation: President of Family Owned Health Business
    Comment: Being born and raised into a California family with a Dad 
who was raised on a farm in Kansas and a family business that 
encompasses health, I would like to think that we can do better when it 
comes to our food supply. Our family has been growing as much of our 
food as possible for the last decade as we have seen the decline in 
farming that has actually made fresh vegetables and fruit unhealthy to 
eat. Time for change!
                                 ______
                                 
                        Comment of Alodie Spires
    Date Submitted: Sunday, May 20, 2012, 1:37 p.m.
    City, State: Portland, OR
    Occupation: Bookkeeper
    Comment: As a citizen my desire is to put environmental and social 
welfare issues above corporate advancement. Our lands must be cared 
for. Genetic diversity in livestock and agriculture Must be preserved 
to grow healthy, sustainable food stocks. Small farming operations 
offer the best stewardship for our farmlands and food supply. Healthy 
lands produce healthy foods and are directly related to the health of 
our citizens. If the main motivation is to make food cheap (and using 
corporate advertising to promote cheap food), people will consume that 
food more & more and our nation's health will continue to dwindle as is 
evidenced by our growing lifestyle diseases. Corporate control of our 
food stocks, farmlands & farmers is dangerous and in the worst form of 
capitalism--disregard for integrity, diversity and human welfare to 
benefit the few with profits. We need to end corporate food subsidies 
and give support to our nation's family farmers & small food producers.
                                 ______
                                 
                      Comment of Katie Spitaletto
    Date Submitted: Friday, May 18, 2012, 3:17 p.m.
    City, State: Boca Raton, FL
    Occupation: Part-Time Teacher/Small Business Owner/Mother
    Comment: I'd like to feel as if I had a choice in the food I feed 
my family. I'd like to know that the food I'm choosing is safe. I want 
GMOs labeled. I want cancer causing food dyes removed from the shelves, 
not used until supplies are deleted. I'd like tax breaks for local 
farmers who belong to farmer's markets. I don't believe that one 
corporation should be the driving force behind one sort of seed--
monopolies are dangerous. America is a place of diversity, and I 
believe that should apply to our food sources as well.
                                 ______
                                 
                     Comment of Meredith Spitalnik
    Date Submitted: Friday, May 18, 2012, 10:17 a.m.
    City, State: Newport, RI
    Occupation: IT Professional
    Comment: The structure of the farm bill over the last 4 years has 
directly contributed to the poor health of our people and to the near-
death of the family farm. The farm bill was supposed to stabilize 
prices, not depress them.
    Please! Restore the price stabilization system and end the direct 
subsidies. Keep the conservation titles but make the spending mandatory 
instead of discretionary. Support small family farms that sell in their 
local communities. Support organic vegetables instead of conventional 
corn. And while I'm dreaming--make CAFOs illegal--don't subsidize them.
                                 ______
                                 
                         Comment of Sarah Spitz
    Date Submitted: Friday, May 18, 2012, 10:12 a.m.
    City, State: Santa Monica, CA
    Occupation: Retired Public Radio Producer/Publicity Director
    Comment: I agree with Slow Food and all the other nonprofits whose 
interests are those of the people, not the big agricultural forces that 
are infecting this bill.
    Small farmers, just like small business in America, drive the 
economy; their interests are in our welfare and making an honest 
dollar.
    I do Not want my tax payer money funding Monsanto, 3M, Kellogg's, 
monocroppers who are destroying us through their use of pesticides, 
fertilizers, bad soil stewardship, all to pay themselves more while 
starving the people.
    I am not a wild eyed liberal anarchist 99 percenter. I am a middle 
class retiree concerned with the fate of the planet and the people on 
it, whose very existence is being threatened by the practices of Big 
Ag.
    Make room in the bill to support veterans returning from war and 
learning to farm--too many small farms are falling by the wayside and 
into the hands of big ag.
                                 ______
                                 
                         Comment of Linnie Spor
    Date Submitted: Friday, March 16, 2012, 2:13 p.m.
    City, State: South Jordan, UT
    Occupation: Coordinator
    Comment: I work at a Community College. So many students go without 
meals because they have no funds for food. Hunger in college is common. 
This hurts student's studies and testing. We need these students to do 
well in college so they can give back to the community. I would like to 
support a strong farm bill created to help struggling students.
                                 ______
                                 
                         Comment of Cathy Spoto
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: Irvine, CA
    Occupation: Homemaker
    Comment: I am in support of a healthy food bill. The people deserve 
to know how our foods are coming to the table, and we deserve to know 
what foods are being genetically modified.
                                 ______
                                 
                    Comment of Michael Spottiswoode
    Date Submitted: Friday, May 18, 2012, 2:40 p.m.
    City, State: Albuquerque, NM
    Occupation: Health Care Provider
    Comment: Grow non-GMO foods Only!
    Grow corn as a food, not as a bio-fuel that brings no net gain to 
the environment when soil depletion, pesticide pollution, and water 
utilization are all factored in.
    Stop subsidies on low quality ``staples'' at the expense of 
nutritionally beneficial fruits and vegetables.
    Promote sustainable agriculture. Subsidize sustainable practices if 
any at all.
                                 ______
                                 
                        Comment of Sarah Sprague
    Date Submitted: Sunday, May 20, 2012, 10:10 a.m.
    City, State: Sarasota, FL
    Occupation: Speech Pathologist
    Comment: Organic is important. Small farms are important. Non-GMO 
farming is important. Regulations for safe humane animal husbandry is 
important. Local supply is important. No antibiotics is important And 
allowing undercover reporting is important.
                                 ______
                                 
                         Comment of Tai Spring
    Date Submitted: Saturday, May 19, 2012, 5:46 p.m.
    City, State: Driftwood, TX
    Occupation: Restaurant Food Service
    Comment: Healthy food is probably the most important resource 
besides for water. We must support organic farming to keep Americans 
healthy with a strong immune system. Especially with the rise in 
cancers, obesity, diabetes, and low immune systems, we need to spend 
money on things that really matter to the human race. Non GMO organic 
food is important to the health of our nation. Science will support 
this claim, even though many industrial agriculture lobbyists will try 
to convince you otherwise. I hope you can see my point. Thank you.
                                 ______
                                 
                        Comment of Judy Sprinkle
    Date Submitted: Friday, March 16, 2012, 10:46 a.m.
    City, State: San Diego, CA
    Occupation: Caregiver
    Comment: I believe this merits thoughtful and responsible 
attention. Without a healthy and robust food source and supply, all 
else is nearly irrelevant. Thank you.
                                 ______
                                 
                     Comment of Kunuthur Srinivasa
    Date Submitted: Friday, May 18, 2012, 5:12 a.m.
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: Organic farming is not only essential for humans on Earth 
but also for all other forms of life of plant and animal origin in 
order to improve their quality of life holistically. Nobody has an 
exclusive right over others to decide how their living style should be 
with special reference to health.
                                 ______
                                 
                       Comment of Eric St. Clair
    Date Submitted: Friday, April 27, 2012, 8:54 a.m.
    City, State: Waterloo, IA
    Occupation: Graduate Student
    Comment: In this economy, it is wrong to leave hungry Americans 
behind in order to preserve military spending or chase illusive budget 
goals. Do NOT cut funding for Food Stamps in the next farm bill. In 
Iowa alone 382,000 people are food insecure. They need our support, not 
a cold shoulder.
                                 ______
                                 
                      Comment of Janice St. Clair
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Cambridge, MA
    Occupation: Childcare Provider
    Comment: Please reform farm policy to support small, organic, and 
independent farmers. This is the only way to return our country to a 
sustainable form of food production. Big business is ruining our soil 
and environment while producing less nutritious and often disease-and-
chemical-ridden food, and is using its clout to ruin independent 
farmers who use better alternatives to chemical pesticide and 
fertilizer overuse and to animal cruelty.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you.
                                 ______
                                 
                    Comment of Marguerite St. Pierre
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Chelsea, MI
    Occupation: Homemaker
    Comment: Stop big business from taking down the regular farmers. 
GMO's should be banned/stopped. I do not want to eat any of this junk. 
Protect the farmers, not big business. I want natural whole milk 
straight from a cow, not adulterated by big business and the FDA!
                                 ______
                                 
                        Comment of Bonita Staas
    Date Submitted: Thursday, May 17, 2012, 7:04 p.m.
    City, State: Orangeville, IL
    Occupation: Sales
    Comment: Stop giving subsidies to corporate ``farmers''--some who 
don't even live on their land. I would like to see Small farmers make a 
come-back. Help people eat Real food, not chemically enhanced garbage.
                                 ______
                                 
                       Comment of Matthew Stalter
    Date Submitted: Friday, May 18, 2012, 5:38 p.m.
    City, State: Albany, OR
    Occupation: Teacher
    Comment: We need a better farm bill--one that supports sustainable, 
long-term farming practices, not short-term practices that ruin the 
land for future generations and produce the lowest quality products 
that slowly poison this generation. Subsidize organic foods. Nearly 
anyone, if given the option between organic and non-organic foods at 
the same price will take organic. Level the playing field between the 
two. Give the people what they want, not what oversized, corporate 
agribusinesses can make the most ill-gotten dollars from.
                                 ______
                                 
                        Comment of Judith Stamps
    Date Submitted: Thursday, May 10, 2012, 8:23 a.m.
    City, State: Atlanta, GA
    Occupation: Nonprofit
    Comment: If you have never had to go without 3 meals per day, I am 
sure you don't have to worry about subsidies. Please don't forsake the 
neediest members of our society. There are children who will be 
directly impacted if you diminish the farm bill.
                                 ______
                                 
                       Comment of Jeanne Stancil
    Date Submitted: Saturday, May 19, 2012, 11:02 a.m.
    City, State: Raleigh, NC
    Occupation: Retired
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Reports from Washington, D.C., say Republicans in the House 
Agricultural Committee have already ``voted to slash $33 billion from 
the food stamp program while leaving farm subsidies unscathed.''
    Also, the latest agribusiness boondoggle gladly steals food from 
the mouths of the hungry to create a ``$33 billion new entitlement 
program that guarantees the income of profitable farm businesses. 
That's on top of $90 billion in subsidies for crop and revenue 
insurance policies.''
    If this weren't bad enough, the Senate Agricultural Committee has 
already voted to cut $4 million from organic research funding and cut 
funding to support Beginning Farmers in half. We cannot let this stand!
    At the same time, the Senate Ag Committee has voted to get rid of 
wasteful subsidy payments. It has proposed to replace it with a new 
subsidized insurance program that leading sustainable agriculture 
advocates are calling rife with opportunities for fraud and abuse.
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    According to the National Sustainable Agriculture Coalition's Ferd 
Hoefner, ``By failing to place limitations on crop insurance subsidies 
and to re-attach soil erosion and wetland conservation requirements to 
crop insurance programs, the Committee has failed to do the full reform 
that is needed.''
    We can't allow this to happen. Join us today in creating real 
reform and a healthy, organic future!
                                 ______
                                 
                        Comment of Alan Stanley
    Date Submitted: Friday, May 18, 2012, 3:48 p.m.
    City, State: Anza, CA
    Occupation: Retired
    Comment: A true farm bill would serve all farmers not just 
agribusiness. I live in an area where agribusiness comes to town, plows 
the land, creates a mess, uses the precious ground water, and does 
little to interact with the local economy. That is in contrast to local 
farmers who raise Alpacas and cattle, shop locally and are part of the 
community. Support the local farmer, don't fight them. We need a farm 
bill that supports organic, and is not just a bill to promote GM crops 
and agricultural subsidies to big corporations that are more chemical 
companies than farmers.
                                 ______
                                 
                       Comment of Sharon Stanley
    Date Submitted: Monday, May 14, 2012, 6:12 p.m.
    City, State: Rochester, NY
    Occupation: Unemployed
    Comment: I do not want cuts to snap food distribution. The program 
does too much good to keep people eating good foods and not going 
without due to cost. Many people are on limited incomes and count on 
these programs to get by.
                                 ______
                                 
                       Comment of Suzanne Stapler
    Date Submitted: Friday, May 18, 2012, 9:11 a.m.
    City, State: St. Davids, PA
    Occupation: Nutrition Coach
    Comment: Stop listening to Big Food and Big Agri. Organics will 
keep us all healthy. We need to help the small, organic farmers who are 
struggling. Stop listening to Monsanto and the like who only want to 
poison us and don't keep our food safe.
                                 ______
                                 
                         Comment of Karen Stark
    Date Submitted: Tuesday, May 15, 2012, 10:49 a.m.
    City, State: Burlington, NJ
    Occupation: Retired Banking Industry
    Comment: I understand that you are considering cutting food stamps 
to help with budget cuts. This is unthinkable. Really? Of all the 
things you have to consider reducing I can't believe food stamps even 
make the list. In this economy people need this support. Please do not 
let this happen.
                                 ______
                                 
                         Comment of Dawn Starke
    Date Submitted: Friday, May 18, 2012, 1:45 p.m.
    City, State: Austin, TX
    Occupation: Office Administration
    Comment: Americans have the right to know what we are eating. GMOs 
are unknowns and thus must be labeled. Farmers should not be put out of 
business by Big Ag. Life should be available to all, not only those who 
profit from holding patents on food and medicine. End the madness and 
do something for the future of our species now.
                                 ______
                                 
                      Comment of Phyllis Starkman
    Date Submitted: Sunday, May 13, 2012, 8:11 p.m.
    City, State: Los Angeles, CA
    Occupation: Homemaker
    Comment: Please stop farming excess corn to modify to modify to 
feed to us, cows, and even fish! It's hurting us! Don't allow the 
destruction of Bristol Bay, which will destroy Wild Salmon. I beg you, 
please stop animal cruelty in industrial farming!
                                 ______
                                 
                        Comment of Georgi Starr
    Date Submitted: Friday, May 18, 2012, 10:55 a.m.
    City, State: Mobile, AL
    Occupation: Housewife
    Comment: Please make our farm bill fair to smaller growers and move 
toward crop insurance that is affordable to all. We need more new 
farmers and more local grown produce to help cut our energy consumption 
and assure food security.
    Thank you.
                                 ______
                                 
                      Comment of Evelynn Starrett
    Date Submitted: Friday, May 18, 2012, 3:38 p.m.
    City, State: Lansdale, PA
    Occupation: Retired
    Comment: Farmers are very important to me. I must eat organic, GMO 
free food and it is vital that farmers receive the help that it takes 
to keep them producing healthy foods for me.
                                 ______
                                 
                      Comment of Mary Beth Starzel
    Date Submitted: Friday, May 18, 2012, 2:00 p.m.
    City, State: San Francisco, CA
    Occupation: Retired
    Comment: Please assure us the ability to have non-GMO foods, 
labeled foods to know they are GMO-free, high organic production 
standards, and safe guards to assure we encourage smaller farms and 
locally grown products.
                                 ______
                                 
                      Comment of Denise Stathatos
    Date Submitted: Saturday, April 28, 2012, 11:48 a.m.
    City, State: Clay, NY
    Occupation: Sales
    Comment: I spoke to a staff member when I called to urge my 
representative to support the farm bill, SNAP, and the Emergency Food 
Program. I didn't fail that I received any commitment, though.
                                 ______
                                 
                      Comment of Michael Stauffer
    Date Submitted: Friday, May 18, 2012, 1:07 p.m.
    City, State: Grand Rapids, MI
    Occupation: Retired
    Comment: Subsidizing wealthy agribusiness is like subsidizing the 
multibillion dollar in profits oil industry while we are paying more 
and more at the pumps. Please support local, family, sustainable, and 
organic farming so these people do not lose their farms and so the I 
have choice all Americans deserve to choose what I purchase and 
consume.
                                 ______
                                 
                        Comment of Judy Stearns
    Date Submitted: Friday, May 18, 2012, 2:51 p.m.
    City, State: Clearwater, NE
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 151-300 acres
    Comment: I was a temporary employee for the Antelope Co. FSA office 
for 10 yrs. I was expected to come into that office & catch all the 
fulltime employees up who refused to do their assigned work. I got no 
benefits or credits for my work, the FSA offices need to be closed & 
the farm bill help as we know it needs to end Now!
                                 ______
                                 
                       Comment of Michael Stebner
    Date Submitted: Friday, May 18, 2012, 4:17 p.m.
    City, State: Scottsdale, AZ
    Occupation: Chef
    Comment: I would like the farm bill to cut subsidies to large 
factory farms. I think that crop insurance should be affordable for 
small farms as well as large. I would like to see some incentives to 
grow organic produce. Educating kids about the importance of healthy 
diet, and proper nutrition.
                                 ______
                                 
                       Comment of Kegan Stedwell
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Point Reyes, CA
    Occupation: TV Film Producer
    Comment: Please fight for healthy farms and healthy food practices. 
Stop subsidizing Big Ag that uses pesticides that are harmful to living 
things! No to GMO's. Round UP ready crops and Round Up pesticides are 
the corporations choices, not the peoples. Hear us!
                                 ______
                                 
                        Comment of Ralph Steger
    Date Submitted: Friday, April 27, 2012, 8:28 p.m.
    City, State: Staunton, VA
    Occupation: Volunteer
    Comment: As a weekly volunteer at a food pantry in the Shenandoah 
Valley providing food to 2,400 families each month, I have seen the 
awful results of current cuts to the USDA food availability. Only 1,000 
lbs. of USDA was available last month. Divide that by 2,400 families 
and you can see the problem we face. You may like to think the 
recession as ebbed, but we at the food pantries have seen no sign of it 
yet. Please draw a Circle of Protection around the SNAP and TEFAP 
programs. Please help us feed the hungry women, children, fathers, and 
elders.
                                 ______
                                 
                      Comment of Florence Steichen
    Date Submitted: Sunday, May 20, 2012, 6:24 p.m.
    City, State: St. Paul, MN
    Occupation: Retired Educator
    Comment: Title I: Have an annual cap of $250,000/farm, and close 
loopholes that allow large operations to receive additional payments.
    Title IV: Keep SNAP so that it meets needs in times of economic 
crises.
    Title VII: support organic and sustainable agriculture systems and 
sustainable economic and community development.
    Title X: Create programs that fully recognize the inherent value of 
Sustainable and organic farming systems, especially in addressing 
climate change. Thank You!
                                 ______
                                 
                       Comment of Dr. Karen Stein
    Date Submitted: Sunday, May 20, 2012, 3:41 p.m.
    City, State: Woodway, WA
    Occupation: Educator
    Comment: We must return to sustainable organic food production. 
Eating food today is accompanied with a layer of fear and apprehension 
about the source, composition, cleanliness and overall healthfulness of 
our foods. As an Elder at 71 . . . many of us fear that we will succumb 
at earlier ages than past generations to effects of pollution, 
chemicals, fall out that we cannot see, taste or comprehend the effects 
of . . . but we do see the rising numbers of affects in an increasing 
number of children born with ADHD, Autism, Asbergers, Prenatal Alcohol, 
Nicotine, and other drugs and chemicals ingested through our food, air, 
water . . . and sick spirits . . . As a Nation that touts freedom and 
human rights it is time to heal our spirits and return to Nature and 
natural sustainable ways. We must begin by freeing Leonard Peltier from 
Prison--an innocent Lakota Man that has served over 36 years--a 
statistically longer period than most murderers such as The Lockerbee 
Bomber who killed hundreds have served . . . Then, lets look at where 
we can begin to grow food locally. Churches and schools often have 
large lots of land. These can all be turned into productive places to 
raise food . . . U.S. of America used to Grow Things as well as Make 
Things. It is important for children to learn how food is grown or 
raised and how it moves to the table . . . We Elders that remember how 
to do this must be cultivated, respected and allowed to teach . . . Our 
Education System has become a Ponzi Scheme of more and more expensive 
courses, degrees, and certifications that produce nothing more than 
over emphasis on compliance and little on how to survive sustainably. 
Thank you for listening. Sincerely from one with BA, MBA, MA ED, and ED 
D degrees and who cannot seem to obtain a job without more course work 
. . .
    Please! Let's change course!

Dr. Karen Stein.
                                 ______
                                 
                       Comment of Anne Steinberg
    Date Submitted: Tuesday, May 15, 2012, 9:01 p.m.
    City, State: Milwaukee, WI
    Occupation: Retired Teacher and Volunteer
    Comment: I support a farm bill that supports local family farmers, 
strengthens the local food systems and makes healthy food more 
available to everyone.
    I live in Milwaukee, WI where I help to connect small local farmers 
and producers with consumers who want to buy directly from them. For 
example, we hold a Local Farmer Open House each spring where over a 
thousand visitors come to meet farmers and sign up for CSA memberships.
    This is what I've learned in doing this work:
    We need a farm bill that helps beginning farmers get started--with 
credit and with technical assistance. There aren't enough farmers now 
growing local food to serve our metro area and many young and 
disadvantaged would-be farmers--and veterans--can't afford to buy land 
and equipment. Now is the time to invest in the future.
    We need a farm bill that funds agricultural research, especially 
the Organic Agriculture Research and Extension Initiative. This 
research is necessary to help young and established farmers be more 
successful in the growing organic sector of U.S. agriculture.
    We need a farm bill that helps build our local food infrastructure. 
For example, we need food hubs, more money going into marketing for 
small family farmers and producers, and investment in value added 
production for small farmers.
    We need a farm bill that protects our future by protecting our soil 
and water resources. So I believe there should be conservation 
requirements for any farmer who receives Federal aid--especially crop 
subsidies or insurance. I know that many Milwaukee residents are 
looking to buy from farmers use good conservation practices.
    We need a farm bill that provides a food safety net for struggling 
Americans in these difficult times. It should prioritize programs that 
improve access to healthy food in low-income communities and our 
school. I do not support cutting the SNAP program in order to prevent 
cuts in military spending. Instead, I believe in tax equity--raising 
taxes on the richest U.S. citizens and ending tax breaks and subsidies 
for large corporations (like the oil companies).
                                 ______
                                 
                     Comment of Jillian Steinberger
    Date Submitted: Friday, May 18, 2012, 4:13 p.m.
    City, State: Oakland, CA
    Occupation: Landscape Gardener (Kitchen Gardens)
    Comment: Hi. I've covered the topic, writing for magazines, 
newspapers and blogs. This includes interviews with many organic 
farmers. From my research, I've found that food produced by these 
Americans follow stronger safety BMPs. They are in closer touch with 
their market that typical consumers buying at large grocery chains--and 
so they are more accountable. Chinese milk and beef, coming here, for 
example, is more dangerous than organic local strawberries, which are 
also safer than soft drinks, sugary cereals, and many packaged food.
    I see that the Federal Government is trying to pass a farm bill 
which is anti-capitalist, in favor of unfair subsidies and less 
regulation to big corporations. Many of these have been fined and cited 
as polluters, as practicing cruelty to production animals and laborers 
(even spraying them with dangerous chemicals).
    This is total BS. Let's admit it. It is support for corporate 
wealth because of how our system works.
    Let's support organic farmers, who are the true small capitalists 
and who offer better lifestyles (including food safety) to consumers, 
laborers, animals, etc.
    I will refrain from voting if a bad farm bill is passed, and I will 
lose more faith in my government's justice for all.

Jillian Steinberger.
                                 ______
                                 
                        Comment of Steve Steiner
    Date Submitted: Friday, May 18, 2012, 11:49 a.m.
    City, State: Lexington, VA
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Poultry/poultry products, Specialty Crops
    Size: Less than 50 acres
    Comment:We are a sustainable small farm and need support for our 
model which is in direct contrast to the industrial agriculture 
currently supported by the government.
    Quit subsidizing unsustainable agriculture and the rest will take 
care of itself.
    And Require Labeling Of GMO Food Now!
            Thanks,

Steve Steiner
                                 ______
                                 
                     Comment of Caroline Steinfeld
    Date Submitted: Wednesday, May 02, 2012, 7:44 p.m.
    City, State: Providence, RI
    Occupation: Student
    Comment: I think you should support organic agriculture Much More, 
and Most Of All, small farms with a high crop variety. Please, stop 
subsidizing corn because they will be detrimental for the country in 
the long run. These subsidies support a model of agriculture that 
depletes the soil and pollutes. This is not about nature. This is about 
our children's welfare and a healthy future economy!
                                 ______
                                 
                      Comment of Suzanne Steinkamp
    Date Submitted: Saturday, March 17, 2012, 9:27 a.m.
    City, State: Saratoga Springs, NY
    Occupation: Retired
    Comment: I buy almost all my produce from local farmers, small 
farmers who do a wonderful job of bringing us healthy, mostly organic 
foods.
    I'm writing in support of my local, upstate NY farmers--and in 
support of small farmers throughout the country. Please be sure you 
provide the support they need in the farm bill under consideration. 
Thank you.
                                 ______
                                 
                         Comment of Val Stelse
    Date Submitted: Friday, May 18, 2012, 5:22 p.m.
    City, State: Milwaukee, WI
    Occupation: Homemaker
    Comment: Yes, I am a mother and we are currently looking for land 
to purchase so we can grow our own food. Because I have been lied to by 
the producers for GMO corn. We were told that this corn would Never to 
allowed in our food sources, but here we are in 2012 with GMO/GE food 
being served to us without our consent. It was all done behind closed 
doors, even though there were scientist that were trying to get the 
word out. Big corporations used their greed to silence them and with 
hold this information from the public. It is good to know that not all 
countries on this planet are like Ours. There are countries that 
believe in the rights of their countrymen to produce and eat food that 
Mother Nature created and not a test tube. These corporations have lied 
and were given taxpayer dollars to keep up their research, which 
outside scientist proved over and over were dangerous.
    But Greed is the foundation of everything in our government today. 
Without greed we would not be having these statements, we would have a 
farming bill that supports sustainable crops and the family farmer. 
Hell we would even have food that actually would Prevent diseases. But 
no instead we have a system that causes diseases. I do believe poison 
was invented to Kill!
    So what do we do now? We fight for our right to grow and consume 
food that improve our bodies and minds. We work towards the common 
Good. We eliminate Greed from our farm bill. The farm bill was put in 
place to help the family farmers/ranchers to survive on their land. To 
put food on every Americans table with reasonable cost. It has turned 
into a farce, a way for the greedy to become more greedy.
    It is time to put People first. Food is our life. It is what can 
keep us healthy or what can destroy us. With all the new disease from 
the past 20 years it is no wonder that GMOs are under fire. All I ask 
is to have food that has been around since the beginning of time. The 
food that God created (if you are Christian) or Mother Nature (if you 
are not). The food that we know is healthy. That is the food this farm 
bill should be looking at and the family farmers/ranches that work the 
land every single day to bring that food to our tables.
    And one last thing, no longer should factory farms or GMOs be 
funded by taxpayer dollars. No way, no how!
    Thank you.
                                 ______
                                 
                       Comment of DeeAnn Stenlund
    Date Submitted: Friday, May 18, 2012, 11:08 a.m.
    City, State: Roseville, MN
    Occupation: Medical Laboratory Scientist
    Comment: I would like to see a farm bill that support the growing 
and distribution of healthy and varied foods, such as fruits and 
vegetables. It should also protect our natural resources. The 
Conservation Stewardship Program should not be cut! The new farm bill 
should also invest in beginning farmer and rancher programs. Our 
farmers are aging and we need to encourage and support young people who 
are interested in farming. Guarantee $25 million for Beginning Farmer 
and Rancher Development Program. We should also be supporting 
innovation by funding the Organic Agriculture Research and Extension 
Initiative at $30 million per year in mandatory funding. Finally, 
support programs like the Value-Added Producer Grants Program by 
guaranteeing $30 million of mandatory funding per year.
                                 ______
                                 
                        Comment of Chris Stephan
    Date Submitted: Friday, May 11, 2012, 11:24 a.m.
    City, State: Seattle, WA
    Occupation: Accountant
    Comment: I am writing to urge the House Agriculture Committee to 
support small organic and environmentally responsible farms and end 
subsidies for agribusiness. In addition please push for better 
treatment of animals and support the farms that make this a priority. I 
would like to see encouraged biodiversity as well and an effort to end 
the destructive reign of Monsanto. Thanks!
                                 ______
                                 
                        Comment of David Stephen
    Date Submitted: Thursday, May 17, 2012, 3:04 p.m.
    City, State: St. James, NY
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: Please stop giving subsidies to large corporate 
unsustainable agricultural companies, instead give subsidies to small 
family operated and sustainable farms that supply to local markets and 
employ local people. Small family farms are the backbone of our 
national food security.
                                 ______
                                 
                        Comment of Gail Stephens
    Date Submitted: Friday, May 18, 2012, 11:10 a.m.
    City, State: Truckee, CA
    Occupation: Retired Psychologist
    Comment: With the economic, social, and dietary needs of this 
nation we can no longer tolerate playing political games with our food 
source. Do the right thing now!
                                 ______
                                 
                        Comment of Greg Stephens
    Date Submitted: Friday, April 20, 2012, 1:37 p.m.
    City, State: Salina, KS
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock
    Size: 1,000+ acres
    Comment: Here are my suggestions:

  <bullet> Keep these programs at current level--Rural Development, 
        Sustainable Agriculture, Food Aid, Nutrition and Food Stamps, 
        Crop Insurance and Estate (death tax) limits.

  <bullet> Enforce and improve these programs--COOL (Country-of-Origin 
        Labeling), GIPSA (Grain Inspection and Producer Stockyards 
        Act), and Research.

  <bullet> Reduce these programs--Crop subsidies. Need to place limits 
        on them based on size.

    Thank You.
                                 ______
                                 
                      Comment of Laura Stephenson
    Date Submitted: Sunday, May 20, 2012, 6:59 p.m.
    City, State: Durham, NC
    Occupation: Farm Hand
    Comment: As an aspiring young small farmer, I hope for a future 
where I can make a living for myself doing something that I believe in 
(local and sustainable agriculture) and providing high-quality food to 
not only middle and upper-class citizens of this country, but low-
income too. How we produce and subsidize food as a nation has been 
incredibly unequal--with large, multinational corporations receiving 
the largest subsidies. My hope for the future of the United States is 
to have a wide-range of diverse crops that can keep our country 
healthy. It appalls me that obesity has become so widespread, and that 
the connection between obesity and what our nation chooses to subsidize 
hasn't been teased out by the public. Please support aspects of the 
farm bill that would help beginning farmers (there are many that need 
help in the Piedmont of North Carolina), farmers transitioning to a 
more sustainable crop/diversification of crops, and please don't 
continue to subsidize large multinational corporations.
            Thanks,

Laura.
                                 ______
                                 
                       Comment of Sharon Stergis
    Date Submitted: Wednesday, May 09, 2012, 2:47 p.m.
    City, State: New York, NY
    Occupation: Writer
    Comment: There is a very serious hunger issue going on in our 
country. Obesity, illnesses, are Not evidence of over indulgence and 
excessive per Se. It's about misinformation, emotional problems, 
ignorance, and most importantly Poverty! Our First Lady has started the 
education on food and exercise. It needs to be a State of Emergency in 
my humble opinion.
    Please for the Love of God, pass a farm Bill with the strength of 
steel to dedicate Americans back to good food, good eating, good 
health, good well being.
    Thank you.
                                 ______
                                 
                        Comment of Jan Stevenson
    Date Submitted: Friday, May 11, 2012, 10:45 a.m.
    City, State: Stillwater, OK
    Occupation: Unemployed, Recent Graduate
    Comment: Family farms promote the best employment situation and 
economic situation, as well as the healthiest, most sustainable food 
stuffs for the world. Please bring actual reform to the farm bill.
                                 ______
                                 
                       Comment of Jane Stevenson
    Date Submitted: Friday, May 18, 2012, 2:06 p.m.
    City, State: Colorado Springs, CO
    Occupation: Teacher
    Comment: I am in favor of safe and thoroughly labeled food and 
opposed to factory farms which sacrifice safety and health for humans 
or animals in the name of profits. I am not against profits, but I do 
want to know exactly what I'm eating.

Jane Stevenson.
                                 ______
                                 
                        Comment of Scott Steward
    Date Submitted: Friday, May 18, 2012, 1:33 p.m.
    City, State: Erie, CO
    Occupation: Realtor--Self-Employed
    Comment: The United States should be leading, creating and doing 
everything better than the next one. Time to step it up!
                                 ______
                                 
                       Comment of Barbara Stewart
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: Marietta, OH
    Occupation: Retail Business Owner
    Comment: I am a 56 year old business woman. My husband and I have a 
retail mattress business, and we do approximately $\1/2\ million a year 
in business. Because of the nature of the business, I spend at least an 
hour with every customer. I am appalled by the health of the people in 
our country. People Are Poisoning Themselves By What They Eat. The 
health of a nation is directly proportional to the health of its 
people. And if you want to find the cause of this ill health, look no 
further than the food. The corporate food giants, made possible by our 
government, are directly to blame, and the government is directly to 
blame by subsidizing this type of agriculture. We Must start addressing 
these agricultural problems. The medical costs of diabetes, even among 
young Americans, is driving health care costs. As a hard-working 
citizen of this society, I urge you to do the hard things that will 
have to be done on a large structural level to solve the problem. That 
means de-funding big agriculture and passing legislation that will 
allow small farmers (especially organic farmers, who care about the 
health of the land), to once again become the dominant players in 
providing food. Will be pay more for our food? Yes. But we will pay 
less for medical expenses, we will feel better, we will have the health 
to keep our country strong.
                                 ______
                                 
                       Comment of Cynthia Stewart
    Date Submitted: Friday, May 18, 2012, 2:54 p.m.
    City, State: Marianna, FL
    Occupation: Land Manager
    Comment: Please do all you can to help our farmers provide healthy 
food for America. Many neighborhoods have difficulty even finding 
reasonably priced produce in local stores. Our farmers must contend 
with soaring fertilizer, herbicide and gas prices. In our area they 
also must deal with drought conditions.
    Thank you.
                                 ______
                                 
                        Comment of Donna Stewart
    Date Submitted: Friday, May 18, 2012, 12:04 p.m.
    City, State:
    Producer/Non-producer: Producer
    Type: Escondido, CA
    Size: Specialty Crops
    Comment: Less than 50 acres My husband and I own a couple of small 
family farms. We currently employ around 100 people and don't believe 
in subsidized farming for the big corporations. The government fees, 
insurance and regulations are what is killing us in the state of CA. 
Wish were could move our farms elsewhere.
                                 ______
                                 
                        Comment of Lisa Stewart
    Date Submitted: Saturday, May 19, 2012, 3:49 p.m.
    City, State: Wharton, NJ
    Occupation: Librarian
    Comment: One of our country's precious resources is the individual 
farmer. So often the farmer is short shifted and marginalized, if not 
driven out of business by global agribusiness. Legislation to be far 
sighted needs to protect and help the farmer prosper. It will also help 
our country prosper, which is crucial now more than ever.
                                 ______
                                 
                      Comment of Donna Stiegmeier
    Date Submitted: Friday, May 18, 2012, 7:40 p.m.
    City, State: Nevada City, CA
    Occupation: Artist/Teacher
    Comment: The most basic of ideals we are having to beg our 
Government for. Good Food. Ridiculous in such an advanced and powerful 
country to pretend that people can eat toxic food without the resulting 
catastrophic health problems. Only because people are starving for 
nutrition do they pump themselves full in excessive quantities of bad 
food. Yes, people need to know what is in their food And in their soil 
And in their water. Thank you House committee but what is this, a joke 
that you want to know if we consider quality of food important?
                                 ______
                                 
                        Comment of Ann Stillman
    Date Submitted: Thursday, May 17, 2012, 11:22 p.m.
    City, State: Grinnell, IA
    Occupation: Psychologist (Retired)
    Comment: I am most concerned that we continue to build into the 
next farm bill, the commitment and requirement for conservation 
practices to be part of any support plan for farmers. We must preserve 
our top soil.
    Thank you for bringing this into the discussions that are taking 
place.
                                 ______
                                 
                       Comment of Michael Stimac
    Date Submitted: Friday, May 18, 2012, 3:02 p.m.
    City, State: Lombard, IL
    Occupation: Millwright
    Comment: Please take a stand for the people not for big business. 
It seems that of our representatives are more concerned with 
corporations than for the people for which they represent. Please help 
change this growing view. Stand for the people.
                                 ______
                                 
                    Comment of Alisha Stireman-Beyer
    Date Submitted: Friday, May 18, 2012, 3:07 p.m.
    City, State: Xenia, OH
    Occupation: Teacher/Homesteader
    Comment: We need to push for a more sustainable policy. We need to 
do whatever we can to encourage small farming outfits, community & co-
farms, urban & suburban homesteading, farmer's markets, and 
localization. We need to reduce the subsidies given to big agriculture 
and wean ourselves from our dependence on corporate agriculture. If we 
don't and soon, we face mass hunger, inflated prices, big businesses 
raking in big profits while the people starve, environmental damage, 
etc. The government is supposed to protect and serve the people, the 
majority . . . not just the wealthy.
                                 ______
                                 
                       Comment of Jenny Stirling
    Date Submitted: Saturday, May 19, 2012, 9:04 a.m.
    City, State: Arlington, MA
    Occupation: Teacher/Musician
    Comment: For years I have been watching, with great alarm, the 
demise of our food systems in this country.
    I urgently request you to support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    I want my children and their children to have access to locally, 
sustainably, organically grown foods that are Affordable for All 
people.
    I want safe foods, un-tampered by genetic experimentations, grown 
in healthy soils.
    I want farmers to be able to work in non-toxic environments for a 
decent, livable pay scale, and I want folks in my community to sell the 
local foods produced, not have it shipped or driven from 3,000 miles 
away.
    I want to see my local community healthy and thriving, rather than 
seeing government protect and (horrifically) subsidize agribusiness 
corporations that cause epidemics of diabetes, unknown cancers, and 
other illnesses.
    Please support the above policies. Our future depends on this.
                                 ______
                                 
                        Comment of Shirley Stith
    Date Submitted: Sunday, May 20, 2012, 6:19 p.m.
    City, State: Hidden Valley Lake, CA
    Occupation: Retired
    Comment: I am interested in protecting our food supply from GMO and 
Monsanto greed & effects on small farms and crops and local economy. WE 
need local grown foods and grapes protected for our health and 
protection for small farms and small business with highest standards.
    Not dirty trick manipulations for greed and unknown potential 
dangerous health hazards by big business only interested in profit.
                                 ______
                                 
                        Comment of Ann Stockdale
    Date Submitted: Friday, May 18, 2012, 5:19 p.m.
    City, State: Gig Harbor, WA
    Occupation: Artist
    Comment: Please put labels on GMO crops. I completely avoid corn 
now because I don't want GMO's. Please sever ties with Monsanto and 
look seriously into their stranglehold on our produce. This is a 
National Security issue , to let one company Own most of our food 
supply . . . so what's up with that. Sterile Seeds are an abomination.
                                 ______
                                 
                     Comment of Dr. Sarah Stockwell
    Date Submitted: Friday, May 18, 2012, 5:49 p.m.
    City, State: San Diego, CA
    Occupation: Biologist
    Comment: As one of the vast majority of Americans who consume food 
rather than producing it, my priorities lie with healthy, affordable 
food rather than continued subsidies to big agricultural businesses 
producing commodity crops. Please allow the new farm bill to reflect 
what is best for, and valued by, the citizens and taxpayers rather than 
what the lobbyists want. I value healthy land and healthy food that is 
accessible to all.
    To this end, I am asking you for:

  <bullet> Full funding of food stamp programs.

  <bullet> Full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> Implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you.

Dr. Sarah Stockwell,
University of California, San Diego.
                                 ______
                                 
                       Comment of Marilyn Stokes
    Date Submitted: Friday, May 18, 2012, 3:29 p.m.
    City, State: Lanett, AL
    Occupation: Retired Missionary Teacher
    Comment: I have grown some of my food in the past, but am limited 
in what I can grow now. I would like to be able to buy organic food and 
food that has not been genetically modified. I do hope that you will 
consider the consumers and the local farmers rather than favoring large 
corporations when you submit the farm bill. It shouldn't be so 
difficult to find safe food for our children and grandchildren.
    I would like to see results of scientific studies done on 
genetically modified foods that are not paid for by Monsanto and others 
who profit from GMO food.
    Thank you for anything you can do to make our food safe.

Marilyn Stokes.
                                 ______
                                 
                        Comment of Sarah Stolar
    Date Submitted: Saturday, May 19, 2012, 11:53 a.m.
    City, State: Seattle, WA
    Occupation: Homemaker
    Comment: End all crop subsidies. Make regulations to encourage the 
move from industrial agriculture and CAFOs to small, local, and organic 
farms. Heavily regulate the planting of GMOs and help make non-GMO 
organic seeds more available.
                                 ______
                                 
                        Comment of Janet Stoley
    Date Submitted: Friday, May 18, 2012, 1:56 p.m.
    City, State: Edwards, CA
    Occupation: Homemaker
    Comment: As a concerned citizen of the U.S. and mother of three 
healthy, beautiful children who have not been sick much since we 
switched to mostly organic foods, I am requesting your full support on 
the full endorsement of all provisions of the Local Foods, Farms and 
Jobs Act. (H.R. 3286) We desperately need these farmers to continue 
farming so that we can eat good quality, healthy food; and since 
unemployment is at an all-time low, we also need these workers to keep 
their jobs. It would be a mistake to depend on other countries for jobs 
and food. Furthermore, it is also a mistake to depend on the government 
for jobs and food. History has already clearly demonstrated that the 
government electives cannot handle that priority adequately. And now 
we're faced with universal health care, something all other countries 
in similar situations detest. At least if we had good, healthy food, we 
wouldn't have to pay much for health care. The need would still be 
there, but the majority of the bills wouldn't. I am also in full 
support of fully funding conservation programs and making sure that 
enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs, the implementation of all 
provisions of the Beginning Farmer and Rancher Opportunity Act(H.R. 
3236), and maintaining the EQUIP Organic Initiative. I was just 
notified that funding for organic research and beginning farmers was 
cut significantly. This is a mistake and will cost us dearly, because 
we will end up paying the doctors rather than the farmers. I personally 
would rather pay the farmers to avoid health problems than the doctors 
to fix them. By cutting funding to these programs, you are showing 
people where your allegiance and values lie: with money and big 
business. This country is no longer run by the people or for the 
people, but by the government for big business. Do not make the mistake 
of letting money drown out the voice of the people. I can assure you 
that there are at least thousands of other citizens who feel the same 
as I do. We need to start fixing problems at the roots rather than 
start from the top, or else we won't need terrorists to destroy our 
country. We will be destroying ourselves from the inside out. I hope 
and pray that you will make the right decision regarding our food.
            Sincerely,

Janet Stoley.
                                 ______
                                 
                       Comment of Janora Stombock
    Date Submitted: Friday, May 18, 2012, 3:13 p.m.
    City, State: Boulder, CO
    Occupation: Retired Building Trades
    Comment: The farm bill must be written in a way that fosters 
healthy farms and regenerative practices. Please stop sending our 
taxpayer dollars to agribusiness, which includes GMO's, pesticides that 
are killing us and this land, and commodity subsidies. Please 
strengthen incentives for organic agriculture and programs for new 
organic farmers. A farm bill should benefit the people, and not 
business. Our children's future is in your hands. Please choose wisely, 
instead of from a place of greed and corruption. Thank you.
                                 ______
                                 
                        Comment of Beverly Stone
    Date Submitted: Thursday, May 17, 2012, 12:54 p.m.
    City, State: Minneapolis, MN
    Occupation: Office Administrator Environmental Agency
    Comment: Please work to provide a farm bill which encourages the 
production of local foods and does not harass organic and family farms 
with paperwork designed to make them fail so that huge conglomerates 
control our food sources.
    Protect organic and family farms from Monsanto and any other 
possible GMO originators, rather than allowing them to dictate the law 
with their egregiousness.
    Thank you.
                                 ______
                                 
                         Comment of Karen Stone
    Date Submitted: Monday, May 07, 2012, 6:07 p.m.
    City, State: East Chicago, IN
    Occupation: Researcher
    Comment: Please do not cut funding for hunger relief programs! The 
need for food in many communities is tremendous; and often hidden from 
public view. No one in this affluent nation should be allowed to go 
hungry. There is no more important priority for our nation than the 
well-being of its residents--hungry people are not productive people; 
and we need the combined energy of all of our residents to keep our 
nation strong and prosperous. We all have paid taxes for decades and 
entrust our representatives with fighting to help meet our needs--to 
allow any American to go hungry would cast a shameful shadow upon the 
ideals by which this nation was founded.
                                 ______
                                 
                         Comment of Mary Stone
    Date Submitted: Friday, May 18, 2012, 2:10 p.m.
    City, State: Oriental, NC
    Occupation: Retired Teacher
    Comment: I buy grass fed beef and organic produce. I support the 
small farmer that promotes being humane to animals and protecting our 
environment from pesticides.
    Please support our small famers, not the corporations that are only 
concerned with making more money, and dumping consumers and animals at 
the bottom of the pile.
    We depend on you to keep us safe from those who would harm our 
children and environment just to attain the next dollar!
                                 ______
                                 
                       Comment of Michelle Stone
    Date Submitted: Saturday, May 19, 2012, 7:37 p.m.
    City, State: Pine, AK
    Comment: Please outlaw GMO food. Stop subsidizing corn used for 
high fructose corn syrup (which is contributing to this country's 
obesity crisis). Subsidize the farmers who really need it, the organic 
and smaller family farms. Big corporations do not need government 
money. Stop the waste and get back to supporting healthy crops. Stop 
the abuse of farm animals. If you want to reform health care do it at 
the food level. Give people healthy, cheap choices!
                                 ______
                                 
                      Comment of Carol Stoneburner
    Date Submitted: Friday, May 18, 2012, 2:05 p.m.
    City, State: Minneapolis, MN
    Occupation: Administrative Assistant, University of Minnesota
    Comment: We need a farm bill that starts paving the way for real 
reform. It needs support shifts in agricultural practice in ways that 
promote conservation of soil and water quality, that reduce the use 
petrochemical products both for fertilizers and for pesticides, that 
diversify crop variety by individual farmers, that expand the 
availability of crop insurance to non-commodity corps, and that that 
penalize use crops genetically modified to resist herbicides.
    Also, you need to keep strong support for the nutritional aspects 
of the bill; SNAP has an incredibly high rate of return on investment 
both in terms in direct economic benefits and in a healthier society. 
To that end there should also be increased funding for use of SNAP 
benefits in farmers markets.
    Failure to do these things undermines the health, economic and 
biological security of our country, both in the immediate future and 
for years to come, for the short-term benefit of a small number of 
corporate giants.
                                 ______
                                 
 Submitted Letter by Chuck Stones, President/Chief Executive Officer, 
                       Kansas Bankers Association
Date: April 11, 2012

To: The Honorable Frank D. Lucas, Chairman, U.S. House Agriculture 
            Committee
  The Honorable Collin C. Peterson, Ranking Minority Member, U.S. House 
            Agriculture Committee
  The Honorable Tim Huelskamp, Congressman--Kansas 1st District
  The Honorable Lynn Jenkins, Congresswoman--Kansas 2nd District
  The Honorable Kevin Yoder, Congressman--Kansas 3rd District
  The Honorable Mike Pompeo, Congressman--Kansas 4th District

From: Chuck Stones, President/CEO--Kansas Bankers Association

Re: U.S. House Agriculture Committee Farm Bill Field Hearing, April 20, 
            2012--Dodge City, Kansas

    On behalf of the 300 banks that comprise the Kansas Bankers 
Association and the nearly 14,000 Kansans employed by those community-
based organizations, we welcome Members of the U.S. House Agriculture 
Committee to the Sunflower State. We commend the Committee for taking 
time to seek input directly from agricultural producers, as well as 
other stakeholders that will be impacted by the next farm bill. We also 
appreciate this opportunity to highlight two very important items that 
we hope this Committee will consider as deliberations on the next farm 
bill continue.

    Item #1: Removing Participation Limits from USDA FSA Loan Guarantee 
Programs

    KBA supports removing the current 15 year participation limit 
applied to loan guarantee programs administered by USDA's Farm Service 
Agency (FSA). The current 15 year participation limit has created 
uncertainty for many farmers and ranchers in Kansas and across the 
nation that borrow money from banks through FSA loan guarantee 
programs. In Kansas, there are currently 1,104 agricultural borrowers 
that are utilizing the FSA loan guarantee program. Because of the 
participation limit imposed by Congress in 1992, 212 Kansas borrowers 
have already been term-limited out of the program and an additional 93 
Kansas borrowers will be forced to exit the loan guarantee program 
within the next 2 years. Given the cyclical nature of the agricultural 
economy, it seems short-sighted to place a simple 15 year limitation on 
program participation when the relationship between the agricultural 
producer and the agricultural lender often spans many decades. 
Furthermore, KBA is not aware of comparable term limits for other 
Federal loan guaranty programs and we question the merits of term 
limits given the volatile nature of the agricultural economy. KBA urges 
Members of the House Agriculture Committee to remove this restriction.

    Item #2: Maintaining a Strong and Vibrant Federal Crop Insurance 
Program

    KBA supports maintaining a strong Federal Crop Insurance Program as 
a vital risk management tool for farmers and ranchers. Agriculture is 
an inherently risky business, both in terms of weather and markets. 
Federal crop insurance provides producers with an effective tool to 
manage their risk, and it provides agricultural lenders with greater 
certainty that loans made to producers will be repaid. Federal crop 
insurance serves as an incentive for agricultural lenders when lending 
to young and beginning farmers that have less collateral and equity and 
it is instrumental in assuring that American agriculture remains solid, 
solvent and globally competitive. Without the risk protection provided 
by Federal crop insurance, agricultural lenders would be forced to 
increase underwriting standards, increase costs to offset risk and 
likely be forced to reduce credit availability to some producers for 
their production, equipment and land purchase needs. KBA strongly urges 
Members of the House Agriculture Committee to maintain the 
effectiveness of the Federal Crop Insurance Program as you consider the 
next farm bill.
    Once again, thank you for holding this important forum in Kansas 
and thank you for the opportunity to provide comments on the two 
important items referenced above. Kansas banks and Kansas bankers will 
continue to serve the needs of the Kansas agricultural community and we 
look forward to enactment of a strong Federal farm program that will 
ensure the vitality of agricultural producers and the entire 
agricultural industry.
    For additional information, please contact Chuck Stones at 
[Redacted] or by calling [Redacted].
                                 ______
                                 
                         Comment of Sara Stopek
    Date Submitted: Monday, May 14, 2012, 11:35 p.m.
    City, State: Brooklyn, NY
    Occupation: Gardener, Teacher, Writer
    Comment: Our CSA makes a big difference in our neighborhood--please 
support small farmers, and food for the needy. These things make our 
local economies thrive.
                                 ______
                                 
                       Comment of Marina Stopler
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Pleasantville, NY
    Occupation: Nutritionist
    Comment: People are told, year after year, how important it is to 
eat whole foods from real farmers--at farmers markets, greenmarkets--
these are the people that can take care of our land and water. Can the 
government Please take note.
    People are no longer buying supermarket meat, poultry, or produce 
if is from the hands of mass market producers--CAFO's, chickens that 
can't walk because of the way they have been bred, produce that comes 
from thousands of miles away. America has woken up--let us know that 
you are listening and make the farm bill truly for farmers Not 
industry.
                                 ______
                                 
                   Comment of Susan Storlazzi Torpey
    Date Submitted: Sunday, May 20, 2012, 9:44 a.m.
    City, State: Lake Grove, NY
    Occupation: Consultant
    Comment: I implore you to reform the farm policies now so that 
people's health is put before the special interests of business. 
Organic farms need more support not less. We need to start caring more 
about health and protecting our environment thereby our future, before 
it is too late!
                                 ______
                                 
                        Comment of Michael Storm
    Date Submitted: Saturday, May 19, 2012, 11:03 p.m.
    City, State: Louisville, KY
    Occupation: Electrician/Urban Gardener/Bee Keeper
    Comment: I am shocked to hear that you would even consider not to 
tie conservation practices with the legislation before you as had been 
in the past! Soil, water and air are important to everyone and need 
protection forever.
                                 ______
                                 
                       Comment of Kayla Stormont
    Date Submitted: Wednesday, May 02, 2012, 10:55 a.m.
    City, State: Providence, RI
    Occupation: Student
    Comment: A friend and I are working on a project for a class about 
sustainable agriculture and we're examining the farm bill, specifically 
proposals for changes to the crop insurance programs in the 2008 Farm 
Bill. We support the efforts that are being made to extend crop 
insurance to organic and specialty crops, but are skeptical about the 
use of a private-public partnership in order to provide this insurance. 
We think that a better solution would be to put the government in 
charge of collecting crop insurance payments and distributing monetary 
aid in the event of a natural or market-based disaster. We think using 
private companies is inefficient and might lead to wasted money. 
Private companies are more likely to double-count farmers, dolling out 
multiple payments to farm owners as well as farm managers. A federally 
led program would facilitate enforcement of single payments to 
operations and would allow for more wide scale regulation which would 
ensure equality for all farmers.
                                 ______
                                 
                        Comment of Mary Jo Stout
    Date Submitted: Friday, May 18, 2012, 8:36 p.m.
    City, State: San Jose, CA
    Comment: It is time to have a just farm bill--subsidy support for 
farms, all the agriculture business, dairy's--is a giant welfare 
program stop all this become fair just in your rulings of new farm 
bills.
    Thank you.
                                 ______
                                 
                        Comment of Karen Stoute
    Date Submitted: Friday, May 18, 2012, 4:49 p.m.
    City, State: Brooklyn, NY
    Occupation: Rental Agent
    Comment: It is sad to see the state of our food supply. What is 
sadder is that this is allowed because of the policies that the 
government put in place. The FDA and USDA have been influence by the 
big food companies. They have stopped looking out for the wealth fare 
of the public.
    The land is being destroyed by the pesticides and the GMO crops. 
Unfortunately. profit is the driving force behind all the policies 
relating to the food industry, the health of the citizens are 
secondary. Well, perhaps things will change with the new farm bill.
            Sincerely

Karen.
                                 ______
                                 
                      Comment of Christine Straley
    Date Submitted: Friday, May 18, 2012, 11:35 a.m.
    City, State: Denver, CO
    Occupation: Nutritionist
    Comment: Please remove Monsanto affiliates and other big ah 
business from government positions. Please put the American people's 
health and vitality first not the almighty dollar.
                                 ______
                                 
                        Comment of Sally Strand
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: Aurora, IL
    Occupation: Holistic Health Counselor
    Comment: I work with people to improve their health, and one of my 
most powerful tools is food. And the quality of our food is being 
depleted by Big Ag, please support these aspects of the farm bill (I 
hope I've stated that correctly). By continuing to support factory 
farming, and not the smaller farmers, you are also supporting the 
growing number of health problems that seems to stem from ``cheap'' 
low-quality food, that will cost us all much more in the long run.

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

            Thank you for your service.

Sally Strand.
                                 ______
                                 
                       Comment of Linda Strangio
    Date Submitted: Friday, May 18, 2012, 3:32 p.m.
    City, State: Glens Falls, NY
    Occupation: Retired Homeowner/Gardener
    Comment: Food is so very important. I am very concerned that GMO 
foods have taken over agriculture. It is devastating and will forever 
alter our world in a negative way, if it has not already become too 
late. I implore my representatives to see the light on this subject for 
the future generations of our nation and the world.
                                 ______
                                 
                   Comment of Lindsay M. Straub Vorse
    Date Submitted: Tuesday, May 15, 2012, 6:33 p.m.
    City, State: Roseburg, OR
    Occupation: Unemployed
    Comment: Please support those who struggle with food security by 
supporting the continued funding to SNAP and other food programs. Vote 
against cutting the food stamps that many families need. Thank you for 
your time.

Lindsay M. Straub Vorse.
                                 ______
                                 
                        Comment of Diane Stredny
    Date Submitted: Friday, May 18, 2012, 10:51 p.m.
    City, State: Albany, NY
    Occupation: Registered Nurse
    Comment: I teach my healthcare clients to eat only organic foods. I 
grew up on a farm and know we need to help organic farmers. Please 
support organic farming efforts.
                                 ______
                                 
                      Comment of Jan Streitburger
    Date Submitted: Friday, May 18, 2012, 12:28 p.m.
    City, State: Arlington, MA
    Occupation: Graphic Designer/Art Director
    Comment: I want purity of vegetables and fruits, no GMO's present, 
and if they are the public needs to know. Just label it and folks can 
decide if that's what they want to consume. Fair practice with farmers 
and consumers is all I'm asking. Thank you!
                                 ______
                                 
                        Comment of Andrea Strle
    Date Submitted: Friday, May 18, 2012, 3:20 p.m.
    City, State: Lewis Center, OH
    Occupation: Mom, Writer/Editor, Fitness Instructor
    Comment: Please considering forbidding genetically modified foods 
until research has proven with certainty there are no health benefits. 
Consider supporting and subsidizing organic farming methods. Please 
forbid the maltreatment of animals. Please require processors to 
identify what is in their food whether it was raised with chemicals and 
hormones and where it came from. Please support the local farmer. 
Please scrutinize the activities of factory farmers who do not always 
have the health of consumers in mind but rather the bottom line. Make 
good responsible organic farming affordable.
                                 ______
                                 
                       Comment of Amanda Strombom
    Date Submitted: Friday, May 11, 2012, 2:33 p.m.
    City, State: Issaquah, WA
    Occupation: Nonprofit Manager
    Comment: The most important change is to stop subsidizing foods 
which make us unhealthy and contribute to the huge obesity problem--
especially meat, dairy, and corn and soybeans which are mostly used to 
feed animals. Corn is also a big problem--because it is so cheap, it is 
used to make all kinds of artificial food products including corn 
syrup. Removing these subsidies would at least level the playing field 
and make unhealthy foods cost a more realistic price. Farm subsidies, 
if any, should be focused only on healthy fruits and vegetables.
                                 ______
                                 
                     Comment of Christina Strother
    Date Submitted: Sunday, May 20, 2012, 1:23 a.m.
    City, State: Manteno, IL
    Occupation: Social Worker
    Comment: We need to support the local farmers! Take the big 
business out of our food. Clean up the farmed food from harmful 
pesticides and Stop factory farming. Pay fair, livable wages to migrant 
farm workers.
                                 ______
                                 
                        Comment of Frieda Stubbe
    Date Submitted: Saturday, April 28, 2012, 9:40 a.m.
    City, State: Guaynabo, PR
    Occupation: Singer
    Comment: If we do not prioritize, if we lose sight of what being 
Human is, if we cannot empathize, not even with our own, we are not 
worthy of being called Americans! Let's Feed Our Hungry First!

Frieda Stubbe, PR.
                                 ______
                                 
                       Comment of Melissa Stuckey
    Date Submitted: Friday, May 18, 2012, 11:47 a.m.
    City, State: Lancaster, PA
    Occupation: Medical Lab Scientist
    Comment: Choosing what I eat is important and having safe, healthy, 
sustainable options available is to the benefit of all citizens. As 
someone who has access to the locally grown Amish crops and a large 
farmers market, I appreciate knowing where my food comes from, that it 
is produced by small local farmers, that they are organic and not 
genetically manufactured, and that I can trust it to be eaten. Everyone 
deserves the chance to eat fresh foods that aren't modified or covered 
in harmful pesticides. I wish people in congress and government would 
put the concerns and health of their constituents over the lure of big 
money from agricultural firms and lobbyists. Please consider the health 
and Future of Americans, our farmers, and our future. We just want to 
be healthy and keep harmful chemicals out of our bodies and keep 
corruption out of the agricultural business. Thank you.
                                 ______
                                 
                      Comment of Jason Sturdevant
    Date Submitted: Friday, May 11, 2012, 10:37 a.m.
    City, State: Raleigh, NC
    Occupation: College Professor
    Comment: I urge you to consider the following elements in crafting 
a farm bill:

    First, we need a bill that encourages the growth of sustainable, 
local agriculture. While we owe a great deal to large-scale 
agriculture, this needs balance with support of small-scale farmers 
that can produce local, nutritious vegetables and fruit, relying upon 
sustainable growing practices (such as those encouraged by USDA Organic 
certification).
    Second, we need a farm bill that protects our natural resources. 
Our forests and prairies, lakes and rivers, and everything in between 
deserve to be protected, not only for the ecological benefits that 
extend beyond those ecosystems, but also for the enjoyment and benefit 
of future generations.
    Third (and last), we need a farm bill that supports investment in 
the next generation of farmers and producers. Encouraging young people 
to enter a career of tending to some of our most precious resources, 
our land and our food, should be an utmost priority. Such encouragement 
should not, however, come at the expense of the two concerns above!
    Thank you for your commitment to providing a farm bill that will 
help both our farmers and the rest of us, now and in the future.
                                 ______
                                 
                        Comment of Jordan Sturm
    Date Submitted: Friday, May 18, 2012, 9:28 a.m.
    City, State: Hilton Head Island, SC
    Occupation: Worship Leader
    Comment: This is so important! Please cut back on corn funding; 
level the playing field. Help to make healthy fruits and vegetables 
competitive price-wise with the junk food made from cheap corn and corn 
syrup, etc. You can help with our obesity and diabetes problem a lot 
with this legislation!
    Thank you,

Jordan Sturm.
                                 ______
                                 
                      Comment of Kathleen Styrcula
    Date Submitted: Sunday, May 20, 2012, 12:40 p.m.
    City, State: Tucson, AZ
    Occupation: Retail General Manager
    Comment: Quality nutrition will build strong Americans. Back to 
basics always works.
    Less Agri-Company interests is truly good for America. Grow Local, 
Eat Local should be the norm not a radical idea. You will also grow 
local economies and put people to work through local sustainable family 
owned small business farming all across this great nation. Why not? 
It's better for everyone. We must do what is better for the majority 
not the minority. Today can be a new day if you choose it.
                                 ______
                                 
                       Comment of Suzanne Sudduth
    Date Submitted: Friday, May 18, 2012, 3:06 p.m.
    City, State: Dallas, TX
    Occupation: Accountant
    Comment: Please reform our food supply now. Big Agra now rules our 
food supply. We must stop this! Write a Law that GMO foods Must be 
labeled. As a consumer I demand to know what I am feeding my children, 
I want to make an informed decision. Thank You.
                                 ______
                                 
    Submitted Letter by Mike Suever, Senior Vice President of R&D, 
             Engineering and Milk Procurement, HP Hood LLC
March 8, 2012

Hon. William L. Owens,
U.S. House of Representatives,
Washington, D.C.

    Dear Congressman Owens,

    Thank you for the opportunity to submit this statement for the 
record at the House Committee on Agriculture's field hearing in Saranac 
Lake, New York on Friday, March 9, 2012.
    HP Hood LLC is a family owned business which operates five dairy 
plants in the State of New York and procures milk from several hundred 
New York dairy farmers who supply those operations through dairy 
cooperatives. Hood operates another eight dairy operations within the 
Northeast and Mid-Atlantic region. Today the company employs 
approximately 3,000 people (more than 800 in the State of New York).
    Our business is directly regulated by the United States Department 
of Agriculture, with programs that were initiated during the Great 
Depression. Today, this 75 year old system of milk price regulations 
keeps our fluid milk products priced higher than all other dairy 
products, not because of consumer demand, but because of government set 
pricing formulas. The system is called ``Federal Milk Marketing 
Orders.''
    Dairy farmers and fluid milk processors cannot use risk management 
tools like the futures market due to an anomaly in the fluid milk 
pricing system under the Federal Milk Marketing Order program. Other 
agricultural commodities, even other dairy items, can go to the Chicago 
Mercantile Exchange and hedge the cost of their products. A simple 
amendment to the existing Federal Milk Marketing Order pricing system 
could correct this injustice.
    For example, when a restaurant chain is preparing its menu, it can 
(if it chooses to) lock-in the cost of almost every item on the menu 
and feel confident when setting menu prices. The restaurant has the 
ability to set menu prices for all other dairy products excluding fluid 
milk. We continue to see restaurant chains drop nutritious fluid milk 
items from their menus because they can't be sure the price listed in 
their menu will allow them to even cover their cost. Furthermore, fluid 
milk sales continue to decline (between 2-3% just this past year alone) 
within the Northeast.
    Second, it is our understanding that the House Agriculture 
Committee may consider Rep. Collin Peterson's (D-MN) bill, H.R. 3062, 
that includes the ``Dairy Market Stabilization Program'' (DMSP), and we 
respectfully ask that you oppose it.
    The DMSP will be a gross and unnecessary intrusion of government 
into dairy markets. It will decrease milk supply by periodically 
requiring HP Hood to reduce milk payments to our suppliers and submit 
the difference of those payments to USDA. The DMSP would also impose a 
new, complex, and costly regulatory burden on dairy manufacturers. In 
order to withhold payments from dairy farmers, our company will need to 
track which farmers are participating in the program. We will no doubt 
be subjected to periodic audits and reviews to assure that we are 
following the letter of this new program.
    In closing, we urge you to support an amendment to the Federal 
Order provision commonly referred to as the ``higher of cost setting'' 
to eliminate the anomaly that exists in the fluid milk pricing system 
today. Second, we urge you to oppose the Dairy Market Stabilization 
Program or any similar programs, and instead support safety net 
programs for dairy farmers that do not interfere in the marketplace or 
directly regulate our business.
    Thank you for your time and consideration.
            Best regards,



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
Mike Suever,
Senior Vice President of R&D, Engineering and Milk Procurement,
HP Hood LLC.
                                 ______
                                 
                        Comment of Lor Sugarman
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Naples, FL
    Occupation: Fiscal Technician
    Comment: I am in Connie Mack's district, and I want him to 
represent the great majority of his constituents in labeling food with 
GMO status before it's too late. I promise that I will not vote for him 
again unless he takes that step!
                                 ______
                                 
                       Comment of Laura Sugarwala
    Date Submitted: Tuesday, May 15, 2012, 8:22 a.m.
    City, State: Rochester, NY
    Occupation: Food Bank Nutrition Resource Manager
    Comment: As part of the emergency food network, working everyday 
with people who are just trying to make ends meet, I oppose cuts to 
SNAP and all nutrition programs.
                                 ______
                                 
                       Comment of Gretchen Sukow
    Date Submitted: Friday, May 18, 2012, 2:08 p.m.
    City, State: Lexington, VA
    Occupation: Preschool Teacher
    Comment: I want a farm bill that supports family farms, 
environmentally sound farming practices, and safe food for my family. I 
do not want to put more tax free dollars in the pockets of huge 
agribusinesses which do none of this!
                                 ______
                                 
                         Comment of B. Sullivan
    Date Submitted: Friday, May 18, 2012, 3:11 p.m.
    City, State: Louisville, CO
    Occupation: Self-Employed
    Comment: Farming should not be big business. It should be local, 
fair and humane. Organic and additive free meat, dairy and produce 
should be the norm. I want the right to raw dairy and to honest food 
labeling that lets me know every single ingredient in my food and 
whether or not it's GMO. Big Agra stinks and I don't want them in my 
elected officials' back pockets. Thank you.
                                 ______
                                 
                       Comment of Carol Sullivan
    Date Submitted: Wednesday, March 21, 2012, 1:36 p.m.
    City, State: Lackawaxen, PA
    Occupation: Nonprofit
    Comment: Please incorporate S. 1640, the Federal Milk Marketing 
Improvement Act, sponsored by Senator Casey (D-PA), into the farm bill. 
Dairy farmers need to have their cost of production covered. We are 
losing too many dairy farmers, and the rural way of life and the rural 
economy is suffering. Please help the dairy farmers by eliminating 
property taxes on dairy farms with less than 200 cows.
                                 ______
                                 
                      Comment of Colleen Sullivan
    Date Submitted: Friday, May 18, 2012, 6:44 p.m.
    City, State: Santa Cruz, CA
    Occupation: Education
    Comment: Sustainable farming and food production is one of the most 
important issues facing our country today. It impacts our health, our 
environment and our economy. Please show leadership in the world by 
supporting healthy, sustainable farming practices in opposition to 
farming practices dictated by agribusiness with deep pockets.
                                 ______
                                 
                    Comment of Dr. Patrick Sullivan
    Date Submitted: Friday, May 18, 2012, 9:15 a.m.
    City, State: Chapel Hill, NC
    Occupation: Professor of Medicine, Duke University
    Comment: Subsidies for corn based products need to be significantly 
reduced. Support for locally grown fruits and vegetables need to 
increase substantially. If we don't change our food/farm policy our 
health care costs will place an unsustainble burden on the economic 
health of our country.
                                 ______
                                 
                       Comment of Eileen Sullivan
    Date Submitted: Friday, May 18, 2012, 2:59 p.m.
    City, State: Charlotte, NC
    Occupation: Self-Employed
    Comment: U.S. food and agricultural policy must focus on adopting 
best agricultural practices that put the health of our citizens, the 
land and the livelihood of farmers and farm workers over the interests 
of industrial agriculture lobbyists. I support the full endorsement of 
all provisions of the Local Foods, Farms and Jobs Act (H.R. 3286). I 
ask that you fully fund conservation programs, such as the Conservation 
Stewardship Program, and make sure that enrollment in any new insurance 
subsidies are tied directly to compliance with conservation programs. I 
also support the implementation of all provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236), and I ask that you 
maintain the EQIP Organic Initiative. All of these items are vitally 
important to me and my family. My family buys locally whenever 
possible, and we only eat organic food. It's a big expense, but I have 
two young adult daughters and I don't want my future grandchildren to 
be negatively affected by pesticides, GMOs and poor nutrition. I also 
want to be a good steward of our resources and insure clean air, clean 
water, and a healthy environment for my children and grandchildren.
                                 ______
                                 
                       Comment of Elaine Sullivan
    Date Submitted: Friday, May 18, 2012, 12:41 p.m.
    City, State: Sharon, MA
    Occupation: Nurse Educator
    Comment: Its time we take our farms and food production seriously 
in terms of the health of the nation. We need to support the small 
farmers and not force them out of jobs and their land, make it possible 
for them to sell their products and make a living.
                                 ______
                                 
                       Comment of Terry Sullivan
    Date Submitted: Friday, May 18, 2012, 1:56 p.m.
    City, State: Vashon, WA
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: We are a very small producer. We feel that the future will 
best be served by small local producers rather than large fossil fuel 
dependent producers far from their markets. To continue to put ``all 
our eggs in one basket'' is a foolhardy strategy. If you really believe 
in people being accountable for themselves, taking care of themselves, 
then you would encourage them to do that by continuing to nurture small 
farmers.
                                 ______
                                 
                       Comment of Thomas Sullivan
    Date Submitted: Friday, May 18, 2012, 4:07 p.m.
    City, State: Turners Falls, MA
    Occupation: Landscape Designer
    Comment: Please help us revive our local economies and preserve 
soils and bee habitat by favoring small scale farmers and their local 
markets. Also, please be sure to include hefty funding for native bee 
monitoring and support for farmers to increase pollinator habitat on 
the edges of their fields and around their farms. Help us revive our 
lives and lessen the dominance of corporate control of agriculture and 
free our markets to increase the stocks of healthy foods by supporting 
new farmers and farmers markets. The health of our nation depends on 
it.
            Thanks so much,

Tom
                                 ______
                                 
                    Comment of Robert Sullivan, M.D.
    Date Submitted: Friday, May 18, 2012, 6:48 p.m.
    City, State: Sacramento, CA
    Occupation: Medical Doctor
    Comment: I oppose most of the subsidies handed over to Big Ag and 
the Energy Industry. I'm embarrassed and angered by the corruption this 
strongly suggests. These are fat cats, not struggling farmers. The 
latter don't have the time and money to hire lobbyists, etc.
                                 ______
                                 
                      Comment of Robert Summerfelt
    Date Submitted: Thursday, May 17, 2012, 8:07 p.m.
    City, State: Ames, IA
    Occupation: Retired
    Comment: Please do not cut funding for conservation programs in the 
2012 farm bill. The farm bill should have a substantial component for 
protection of soil, preventing water pollution, and maintaining healthy 
environments for wildlife. After all, most taxpayers are non-producers 
and deserve benefits from their taxes that go to paying for the 
benefits to producers.
                                 ______
                                 
                       Comment of Dakota Summers
    Date Submitted: Friday, May 18, 2012, 4:54 p.m.
    City, State: Summertown, TN
    Occupation: Life Coach
    Comment: Senators and Representatives, Please enact a farm bill 
that will provide:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    We need to keep tax money and land in the hands of private citizen 
famers and small farm businesses that are investing their lives and 
energies in keeping the land healthy and providing quality, fresh, 
local farm products to our food stream. Please do your job by 
representing voter citizens rather than large corporations. Many of us 
are beginning to read the fine print and watch your job performance.
                                 ______
                                 
                       Comment of Jennifer Sumner
    Date Submitted: Saturday, May 19, 2012, 11:52 a.m.
    City, State: Sutton, MA
    Occupation: Stay-at-Home Mother, Former Software Engineer
    Comment: It is critical that we financially and politically support 
full cycle, healthy, sustainable food production in this country. There 
is no argument that the current mass-produced agriculture is not only 
polluting, but it isn't sustainable. We are destroying the very soil we 
need and pumping non-organic fertilizers into it is not the right 
answer. Is sustainable food production more expensive, yes, but that is 
where the subsidies should go. We know we need to alter the 
``American'' diet of burgers, soda and fries, yet where does the 
majority of subsidies go, corn and soy, which are then overly processed 
into HCFS and oils and grain which is then converted into feed for the 
cattle farms, which are extremely polluting. All of this is done in the 
name of ``cheap'' food. Great chips are cheap, but they are only cheap 
in nutrition and dollars to buy, they are costly in the later diseases 
(diabetes and heart diseases specifically) and pollution. This cycle 
isn't working. Go back to the research that George Washington did to 
make Mount Vernon self-sufficient so they wouldn't have to buy from 
England. Rotating crops, natural fertilizers, soil restoration. That is 
where the support in the farm bill should go.
                                 ______
                                 
                      Comment of Juniper Sundance
    Date Submitted: Sunday, May 20, 2012, 10:31 a.m.
    City, State: Abrams, WI
    Occupation: In-home Health Care
    Comment: I am a constituent of Rep Ribble.
    I believe America needs a farm bill that drives innovation for 
tomorrow's farmers and food entrepreneurs--fund the Organic Agriculture 
Research and Extension Initiative at $30 million per year in mandatory 
funding.
    I believe America needs a farm bill that makes healthy food widely 
available to all Americans--including schoolchildren! We must provide 
flexibility for states to use existing food procurement programs to 
purchase fresh, healthy food from local farmers and ranchers.
    I believe America needs a farm bill that protects our natural 
resources--protect the Conservation Stewardship Program from unfair 
funding cuts, and improve it by ranking applications solely on their 
conservation benefits. Farmers count on CSP and other conservation 
programs to conserve soil for future generations, keep water and air 
clean, and create habitat for wildlife--all while farming profitably.
    I believe America needs a farm bill that invests in the next 
generation of farmers and ranchers--guarantee $25 million per year in 
mandatory funding for the Beginning Farmer and Rancher Development 
Program. We need a national strategy and commitment to support 
beginning farmer and ranchers entering agriculture. With an aging farm 
population, now is the time to invest in the future of American 
agriculture by nurturing new agriculture start-ups.
    I believe America needs a farm bill that creates jobs and spurs 
economic growth but not at the expense of our environment and health. I 
opppose subsidies for tobacco. I oppose subsidies for multinational 
corporations who remove profits from the local area. I support programs 
like the Value-Added Producer Grants Program by guaranteeing $30 
million of mandatory funding per year. VAPG provides seed money to help 
farmers innovate in agriculture and create jobs while securing a 
sustainable path to market-based farm profitability.
                                 ______
                                 
                      Comment of Cindy Sundell-Guy
    Date Submitted: Friday, May 18, 2012, 12:07 p.m.
    City, State: Wichita, KS
    Occupation: Zija Distributor and Realtor
    Comment: We are coming to a time of food crisis. Help protect our 
food supply and health by making fruits and vegetables more affordable 
and keeping our food non-genetically modified. They are already 
beginning to ruin our health and that of the animals we eat.
                                 ______
                                 
                      Comment of Violet Sunderland
    Date Submitted: Friday, May 18, 2012, 7:24 p.m.
    City, State: Dallas, OR
    Occupation: Homemaker/Retired
    Comment: One by one, our states are going to take Monsanto and 
other GMO producers down before their pesticides kill all the bees 
which will bring on worldwide hunger. You need to get their lobbyists 
out of the equation and start listening to we, the people.
                                 ______
                                 
                         Comment of Judy Suplee
    Date Submitted: Friday, May 18, 2012, 1:00 p.m.
    City, State: Tallahassee, FL
    Occupation: Paralegal
    Comment: As someone who eats healthy, please don't let the big Ag 
farmers dictate how you write the farm bill. Support organic farming 
and the small and local farmers. I am deeply disturbed about the food 
that people are consuming, contributing to illness/sickness.
                                 ______
                                 
                       Comment of Terri Supowitz
    Date Submitted: Sunday, May 20, 2012, 11:13 a.m.
    City, State: Pittsburgh, PA
    Occupation: Teacher
    Comment: My biggest concern is the GM crops. Monsanto cannot be 
allowed to run the agriculture in the USA. Monsanto needs to be told 
No. Farmers should be allowed to get seeds from their crops and not 
have to buy new ones every year. We need more diversity with fruits & 
vegetables not less. The more diverse the less likely the crop will be 
loss. No more farms that only grow one crop--not good for anyone. Tell 
farmers to use less pesticides and fertilizers & more natural organic 
choices.
                                 ______
                                 
                         Comment of Knose Susan
    Date Submitted: Sunday, May 20, 2012, 2:52 p.m.
    City, State: Indianapolis, IN
    Occupation: Acquisition
    Comment: I support subsidizing organic and grass-fed, pasture-
raised farming and meat and dairy production. Not only would I support 
eliminating All subsidies for the production of genetically modified 
crops or livestock, I in fact support legislation Banning All 
genetically modified organisms from U.S. agriculture. My health has 
improved dramatically after switching from CAFO meat, which is all that 
is available in U.S. groceries, to pasture-raised meat and dairy and 
organic produce. Please feel free to contact me for further 
information.
                                 ______
                                 
                         Comment of Nancy Suter
    Date Submitted: Friday, May 18, 2012, 11:41 a.m.
    City, State: Sequim, WA
    Occupation: Retired
    Comment: We have a Congress in this country to represent the people 
who vote them into office . . . Not the lobbyists and big corporate 
mongrels and their greed. It would be a blessing if Congress would 
remember this!
                                 ______
                                 
                       Comment of Beverley Sutton
    Date Submitted: Saturday, May 19, 2012, 10:18 a.m.
    City, State: Tucson, AZ
    Occupation: Teacher
    Comment: Can we please support actual farmers and not giant mega-
corporations? I would like to see funding go toward those producing 
healthy food with no (or at least significantly fewer) pesticides, 
herbicides, and fungicides. Also to those hiring farm workers who get a 
decent wage and health benefits.
                                 ______
                                 
                       Comment of Chelsea Sutton
    Date Submitted: Friday, May 18, 2012, 10:29 a.m.
    City, State: Indianapolis, IN
    Occupation: Freelance Editor, Graduate Student
    Comment: Remember that Monsanto and other giant agri-corps does not 
have the U.S. citizens' best interests at heart. All they are 
interested in is profit--profit that never seems to trickle down to the 
people who need it most. If there is anything that this House can do, 
this Congress can do, it is to pass a farm bill that is fair and clean. 
For once in this session be the stand-up men and women that you ran as 
in your campaigns.
    Specifically:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                        Comment of Ellyn Sutton
    Date Submitted: Saturday, May 19, 2012, 3:36 a.m.
    City, State: Spokane, WA
    Occupation: Teacher
    Comment: Do not use genetically modified products. Recent studies 
have shown that we are becoming human pesticide factories and that our 
health is being deeply endangered.
                                 ______
                                 
                    Comment of Janet Svirsky, Ph.D.
    Date Submitted: Friday, May 18, 2012, 1:45 p.m.
    City, State: Potomac, MD
    Occupation: Teacher/Artist/Mom
    Comment: As someone with a Ph.D. in Math and work in biochemistry 
before changing careers to be a parent, I have been following the 
science and paying attention to the economics. Agribusiness as a 
purveyor of monoculture and genetically based pesticide use is 
unsustainable, as evidenced by the request to use more dangerous 
pesticides as resistance builds to their current products, and 
biodiversity declines, jeopardizing ecosystems and putting future food 
production at risk. Companies like Monsanto and Nausea know the impact 
of their products as do other parts of the world, so once again, the 
future of people is being bought and political expediency appears to be 
winning yet again. Please take a stand for people, good science, and 
our future as a country and a species!
                                 ______
                                 
                         Comment of Lin Svitko
    Date Submitted: Saturday, May 19, 2012, 12:55 p.m.
    City, State: Whiting, IN
    Occupation: Legal Secretary
    Comment: Senator Lugar lost his position in the senate because he 
is out of touch with the current will of the people, who are now much 
more informed and less willing to put up with abuses by big business 
and big agriculture. I urge you to re-evaluate your position as well if 
you are not inclined to support a more progressive farm bill that 
benefits the people and farmers more than the big interests of the 
corporate monster before it's too late. Our food supply is 
systematically being poisoned by corporations who only have their 
profit margins at heart. This is changing fast. Please be on board to 
support what will be for the greater good of the human beings who live 
in this country and produce the healthy food we need.
                                 ______
                                 
                        Comment of Edward Swain
    Date Submitted: Monday, May 07, 2012, 6:40 p.m.
    City, State: Waldorf, MD
    Occupation: Retired Government and Wal-Mart Employee
    Comment: I volunteer at Community Support Systems, Brandywine, MD, 
and we have 30 food pantries. One in Accokeek at my church and one is 
Baden. On the third Tuesday of every month we give out free food at 
Gwyen Park H.S. in Brandywine, MD. On a bitter cold day in November 
over 400 families came out for free food. At Accokeek we average about 
4 families a week coming in needing emergency food. At Baden it's 
almost double that. Baden food pantry get government commodity food and 
without it we could not serve the 100 or so families that come on 
Wednesdays and Fridays. Please do not cut the farm bill. Due to the 
last cuts that were made to the SNAP Program one of our clients went 
from $170 in food stamps down to $60. He is disabled senior citizen. He 
depends on us for additional food and medical supplies.
                                 ______
                                 
                       Comment of Elaine Swanson
    Date Submitted: Thursday, May 17, 2012, 10:57 p.m.
    City, State: Pickett, WI
    Occupation: Natural Landscape Designer
    Comment: I would like to see the huge factory farms abolished. Give 
incentives and economic support to farming that is organic, 
demonstrates respect and care for this planet, fosters small farms 
where families can live in close connection to the Earth. The farm bill 
should rigorously support humane methods of raising animals for human 
consumption. Exceptional people like Temple Grandin should be solicited 
when drafting policy on how animals are treated from birth to 
slaughter. Our farm bill should put the protection of our natural 
resources at the top of the priority list. Finite resources need to be 
protected from wastefulness and excess consumption.
                                 ______
                                 
                         Comment of Joe Swanson
    Date Submitted: Friday, May 18, 2012, 3:23 p.m.
    City, State: La Farge, WI
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 50-150 acres
    Comment: Everyone is concerned with our national safety but little 
attention is given to the food security issues that are becoming more 
dangerous daily. The old saying putting all our eggs in one basket 
should resonate with the corporate farming community as they are 
presently the only ones with a basket. Given the probability of climate 
change and erratic weather, droughts, floods, etc. diversification is 
the only course of action that makes sense. Turning forty percent of a 
food source into fuel is not only holding consumers hostage but is 
setting a precedent to continue to specialize which in turn leads to 
fewer producers who are going to control the food sources for future 
generations.
                                 ______
                                 
                     Comment of Elizabeth Swarthout
    Date Submitted: Sunday, May 20, 2012, 2:45 a.m.
    City, State: Richmond, CA
    Occupation: Music Teacher
    Comment: Please ignore the food industry and help the average 
citizen find the healthiest food choices by supporting the organic food 
production and removing farm subsidies that are from another era.
                                 ______
                                 
                     Comment of Margaret Swearingen
    Date Submitted: Thursday, March 29, 2012, 4:35 p.m.
    City, State: Pike Road, AL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 1,000+ acres
    Comment: We are a large farming operation--growing cotton, corn and 
soybeans--This farm has been in the family since 1900's--I am a widow--
whose husband was raised on this farm. He is deceased and we have 2 
children and their families also live here. My concern--they be able to 
continue to farm and our grandchildren. Do away with the Family Farm 
Estate taxes. Martha Roby is doing a superlative job of representing 
her district here in AL. I only wish Mike Rogers would do the same/we 
are barely in his district and I truly stay concerned.
            Thank you,

Margaret Swearingen.
                                 ______
                                 
                       Comment of Shelly Sweeney
    Date Submitted: Friday, May 18, 2012, 8:21 p.m.
    City, State: San Antonio, TX
    Occupation: Paralegal
    Comment: We must do something for our American farmers. They all 
seem to be under the thumb of Monsanto. This amazes me, that in 
America, this can happen. It pits farmer against farmer. We need our 
American farmers to farm & not be scared of huge corporations.
                                 ______
                                 
                        Comment of Peter Sweeny
    Date Submitted: Wednesday, May 09, 2012, 8:00 p.m.
    City, State: Pleasantville, NY
    Occupation: Real Estate Sales
    Comment: I want to be sure that you understand how vital and 
important SNAP, TEFAP, and CSFP are to older Americans and they must be 
protected. Support and strengthen programs that put food on the table 
for hungry Americans! Subsidies for profitable industries should be cut 
well before food assistance. People's lives and security should come 
before unfairly subsidized profits for private companies. Wake up and 
see the hungry people.
                                 ______
                                 
                        Comment of Janice Swegan
    Date Submitted: Friday, May 18, 2012, 2:33 p.m.
    City, State: Garrettsville, OH
    Occupation: Homeschooling Mom
    Comment: Please help in any way possible to support small family 
farms using permaculture, organic, and localized farming methods for 
growing, producing and distributing of untampered with seeds, soil, and 
produce to become more commonplace, supported and profitable. We need 
to ensure a strong food base through diversity and integrity in food 
production. I'm pretty sure that you support this, but sending out my 
thoughts nevertheless. Thanks for your time and work on this and other 
issues important to our transformation to healthier citizens and 
families.
                                 ______
                                 
                       Comment of Jane Swicegood
    Date Submitted: Wednesday, May 09, 2012, 7:32 p.m.
    City, State: Tucson, AZ
    Occupation: Retired Agricultural Journalist
    Comment: As a retiree who majored in agriculture at the U of AZ, I 
am more interested than most people in feeding the hungry in our rich 
country. I ask that the poor and needy not be forgotten and that our 
government passes legislation to provide food programs necessary to 
sustain our population.
                                 ______
                                 
                      Comment of Lawrence Swidler
    Date Submitted: Friday, May 18, 2012, 12:44 p.m.
    City, State: Accra, NY
    Occupation: Business Manager
    Comment: Hello . . . as a senior, I've watched our country come 
more and more under the control of agribusiness; and seen practices and 
decisions that are short-sighted. The time is now to examine all 
practices in terms of the best interests of our people, ahead of best 
profits for Monsanto and others. Could you possibly be comfortable 
seeing your grandchildren eating food containing known toxins? I'm not. 
Please widen your perspectives!
                                 ______
                                 
                         Comment of Joan Swift
    Date Submitted: Friday, May 18, 2012, 2:24 p.m.
    City, State: Eugene, OR
    Occupation: Retired
    Comment: Taking care of the soil through organic methods and taking 
care the seeds in non-GMO ways will foster our truly sustainable and 
economical health and well-being.
                                 ______
                                 
                       Comment of Sheila Swinford
    Date Submitted: Saturday, May 19, 2012, 8:54 a.m.
    City, State: Toledo, OR
    Producer/Non-producer: Producer
    Type: Forestry, Livestock, Poultry/poultry products
    Size: Less than 50 acres
    Comment: The U.S. government needs to support owner operated local 
sustainable organic farm operations. The current direction and level of 
taxpayer support of corporate agriculture and unsustainable practice 
does not bode well for the future of our people. Toxic farming is 
harming our people and devastating our environment.
    Thank you for your work in assessing the situation and implementing 
new directions for our agricultural support.
                                 ______
                                 
                       Comment of Sharon Switzer
    Date Submitted: Saturday, May 19, 2012, 1:38 p.m.
    City, State: Boulder, CO
    Occupation: Physical Therapist
    Comment: Everyone needs to eat. I choose to eat only healthy, 
organic foods. Food production should be clean, safe and produce food 
that everyone would be proud to eat or serve. Subsidizing the oil 
industry is unnecessary and wasteful. Food is a different matter. Think 
before you act.
                                 ______
                                 
                         Comment of Carol Sword
    Date Submitted: Saturday, May 19, 2012, 7:52 p.m.
    City, State: Pt. Townsend, WA
    Occupation: Librarian
    Comment: Respectfully,

    Three of my immediate family members lost their small dairy farms 
in the 1980's from being unable to compete with agribusiness. It's time 
we stopped subsidizing Any corporate farming. Whatever happened to self 
sufficiency and the American way? Provide grants to local small farms 
and decrease the carbon waste of agricultural transport.
            Thank you,

Carol Sword.
                                 ______
                                 
                        Comment of Emily Sytsma
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: Viroqua, WI
    Occupation: Artist
    Comment: Please  consider more support for Sustainable Organic 
farming! I am a cancer survivor & do not want to expose myself to all 
of the chemicals/pesticides/herbicides found in ``traditionally 
farmed'' crops. I also Do Not want to consume genetically modified 
organisms--please require labeling so we know what we are consuming. I 
try to buy local/sustainable/organic food as much as possible for my 
health & to place a lighter carbon footprint on the planet. These 
issues are very important to me & my family.
                                 ______
                                 
                         Comment of Renee Sytwu
    Date Submitted: Saturday, May 19, 2012, 1:17 a.m.
    City, State: Morristown, NJ
    Occupation: Retired
    Comment: Encourage sustainable agriculture operation by providing 
subsidies to farmers/ranchers transition to Organic Plant Farming.
    OPF can stop the abuses of chemical fertilizers, pesticides and 
antibiotics. Thus to restore a healthy environment where can produce 
nutrient foods to keep Americans healthy.
    OPF has the least carbon footprint, is the most efficient way to 
use the limited resources on Earth.
    The safety net of U.S. food security is OPF, not insurance. For 
more details, http://www.concernedcitizensnetwork.org/category/take-
action/.
                                 ______
                                 
                        Comment of Anna Szamosi
    Date Submitted: Saturday, April 07, 2012, 6:55 p.m.
    City, State: Winston-Salem, NC
    Occupation: Student
    Comment: Please considerably cut agricultural subsidies to American 
producers in this year's farm bill. I recently took a trip to Nicaragua 
with the law school I attend and saw the harsh effects of our low costs 
subsidized food products and DR-CAFTA. We are pushing millions of Latin 
Americans into poverty by flooding their markets with artificially low 
priced food, capturing their market, and then subjecting them to the 
high variability of international markets. Farmers cannot compete with 
our prices, so they have to sell their land and move into the crowded, 
dirty streets of Managua or into trash dumps where they are exposed to 
an unimaginable amount of hazards. Our policies have hurt Nicaraguans 
and other lesser developed countries for decades. Please consider the 
global impact of your decisions and promote humanity, not farm lobbies.
                                 ______
                                 
                     Comment of Shannon Szymkowiak
    Date Submitted: Friday, May 18, 2012, 10:00 a.m.
    City, State: Duluth, MN
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: I am an urban beekeeper and gardener who supports 
sustainable and local food security efforts. It is imperative that our 
farm bill committees do not include those with a solid conflict of 
interest. Big Ag is driving our farmers out of business and poisoning 
our food supply. Please support sustainable efforts. Our children 
depend on us to do the right thing.
                                 ______
                                 
                     Comment of Raymond Szymkowicz
    Date Submitted: Friday, May 18, 2012, 11:05 p.m.
    City, State: Hillsdale, NY
    Occupation: Artist
    Comment: The health of the people and our country, it's waters and 
lands, warrant our turn towards agricultural practices and nutritional 
sources to be of the best quality produce able. I grew up loving 
Twinkies and all the other crap industrial food providers have been 
allowed to market. It is time to turn around, admit the error of our 
ways and provide truly healthy foods. Plus, by restoring our surface 
waters and lands, we will have all the water needed for our population 
to thrive.
                                 ______
                                 
                         Comment of Paul Tabili
    Date Submitted: Friday, May 18, 2012, 11:33 p.m.
    City, State: Racine, WI
    Occupation: Copy Editor
    Comment: Promote organic, GMO-free, and small, local family farms. 
De-emphasize or eliminate large agribusiness conglomerates, pesticides 
and herbicides, GMOs, and factory farms. We want clean, natural, safe, 
local, healthy food. Period.
                                 ______
                                 
                      Comment of Benjamin Tackett
    Date Submitted: Friday, May 18, 2012, 11:11 a.m.
    City, State: Denver, CO
    Occupation: Sales
    Comment: Current food production subsidies and overall food policy 
are extremely poorly designed. Demand labeling of GMO foods. Roadmap 
for transition away from Corn subsidies. Additional support for small, 
local producers.
                                 ______
                                 
                        Comment of Paula Tackett
    Date Submitted: Friday, May 18, 2012, 1:41 p.m.
    City, State: Santa Fe, NM
    Occupation: Retired/Lawyer/Administrator
    Comment: Please support agricultural practices that put the health 
of our citizens over corporate profits. Family farming has been one of 
the great backbones of this nation. Healthy organic foods are critical 
and nutrition programs and programs supporting organic and sustainable 
should be continued. We need a fair and ``healthy'' farm bill. Thank 
you.
                                 ______
                                 
                       Comment of Juliette Tacon
    Date Submitted: Friday, April 27, 2012, 3:07 p.m.
    City, State: Mobile, AL
    Occupation: Caregiver of Senior with Alzheimer's
    Comment: Nutrition programs like the Emergency Food Assistance 
Program (TEFAP), SNAP, the Commodity Supplemental Food Program (CSFP), 
and WIC work together, in conjunction with local food banks and other 
local charities, to ensure: Working parents can put food on the table; 
Children don't have to go to bed hungry; Seniors don't have to choose 
between filling a prescription and filling their pantries.
    When I was younger, I had temporary custody of a friend's child. I 
was working, taking care of myself and a toddler, paying my bills and 
in general being a responsible citizen. During that time I used WIC. 
All the WIC funds went to food. I could not have adequately fed him 
without the help WIC gave me. I know there are people who abuse this 
and other such programs. However, I am sure the majority of people use 
them because they need the help to feed themselves and their children. 
These programs should be adequately funded and fairly administered. No 
child should ever go hungry, especially here in the USA
    I am a supporter of Feeding America and my local food bank. Despite 
the recent improvement of the economy, there are still many people who 
may not know where they will get their next meal. We need a strong farm 
bill to help put food on the table for vulnerable children, seniors, 
and low-income families. Please pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. Cutting these programs 
is not the way to balance the budget. I urge you make them a priority 
in the next farm bill.
                                 ______
                                 
                    Comment of Elizaabeth Takakjian
    Date Submitted: Friday, May 18, 2012, 10:08 a.m.
    City, State: Port Jefferson, NY
    Occupation: Educator
    Comment:

  <bullet> Stop subsidies for large scale production.

  <bullet> Support organic growers . . . and small scale farmers.

  <bullet> Stricter sanctions on imported veg/fruit . . . do not accept 
        use of chems that are banned in U.S.

  <bullet> No GMOs.
                                 ______
                                 
                        Comment of Kai Takayama
    Date Submitted: Friday, May 18, 2012, 2:04 p.m.
    City, State: Kaneohe, HI
    Occupation: Customer Service
    Comment: As a consumer who is very attentive and wary of the foods 
that I ingest into my body as well as the effects that the foods I 
consume have on the environment due to production techniques, I would 
like to see the following things supported in a better farm bill:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> immediately ceasing all crop subsidies from the U.S. 
        government since America is supposed to be a free-market 
        economy and not a socialist state.

  <bullet> Institute reforms that prevent the revolving door between 
        government and large agro-corporations from influencing the 
        process food goes through from farm to table.

    Failure by the government and elected/un-elected officials to 
provide for the safety and sustainability of our food supply is 
tantamount to negligent attempted homicide and they should be 
prosecuted as such.
                                 ______
                                 
                       Comment of Viviane Tallman
    Date Submitted: Saturday, May 19, 2012, 11:01 a.m.
    City, State: Nehalem, OR
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: As a small farmer (organic culinary and medicinal herbs), 
a consumer, a mother and grandmother, and a retired milk producer in 
Tillamook County, Oregon, I strongly support the full endorsement of 
all provisions of the Local Foods, Farms and Jobs Act (H.R. 3286).
    Conservation is a necessary companion to good farming practices. I 
support full funding for conservation programs, such as the 
Conservation Stewardship Program. Please ensure that enrollment in any 
new insurance subsidies are tied directly to compliance with 
conservation programs.
    The Beginning Farmer and Rancher Opportunity Act (H.R. 3236)is 
crucial to long term health of our farming communities. I support the 
implementation of all provisions of HR 3236.
    And as a small organic farmer, I strongly support Maintaining the 
EQIP Organic Initiative.
                                 ______
                                 
                          Comment of Lisa Tam
    Date Submitted: Saturday, May 19, 2012, 9:49 a.m.
    City, State: Amarillo, TX
    Occupation: Homemaker
    Comment: I am writing to express my concern about actions being 
discussed by our Congress in reference to agriculture. This country 
needs to have Farm legislation that will support local food production, 
organic food production and conservation initiatives. Genuine reform 
needs to be taken in the area of food production. Cutting funding for 
programs that support that reform, such as organic and sustainable 
agriculture, nutrition and conservation seems to belie a greater 
commitment to agribusiness and its lobbies than to the American people 
and their need for healthy, nutritious food. Vitamin-infused Styrofoam 
might meet an individual's ``nutritional'' needs but is not a healthy 
alternative. The science clearly confirms that quick and cheap 
production of food does not result in an excellent product. Let's vote 
for excellence and the health of our nation.
                                 ______
                                 
                        Comment of Nicole Tanata
    Date Submitted: Friday, April 27, 2012, 2:46 p.m.
    City, State: Fargo, ND
    Occupation: Domestic Engineer/Chief Grocery Buyer
    Comment: With the cost of food going up . . . especially now with 
the oil boom . . . this cannot just go away. Not sure what the solution 
is but economy is slowly getting better but the price to feed people 
isn't.
                                 ______
                                 
                      Comment of Scott Tankersley
    Date Submitted: Friday, May 18, 2012, 2:09 p.m.
    City, State: Richmond, VA
    Occupation: Software Engineer
    Comment: Agricultural policy must represent citizens, not 
lobbyists. Giant monopolistic big-ag corporations do not need 
assistance or subsidies of taxpayer money, but instead must be 
regulated. GMO products must be labeled to put consumers in control of 
their food choices. They should only be approved based on real third-
party unbiased and extensive scientific study. Any tax payer funded 
assistance should go toward the support of small, sustainable, and 
organic farms.
                                 ______
                                 
                       Comment of Christina Tant
    Date Submitted: Friday, May 18, 2012, 10:35 a.m.
    City, State: Charleston, SC
    Occupation: Yoga Teacher
    Comment: Farms should be able to function without the fear of 
Monsanto & other GMO crops contaminating and leading to legal 
litigation from the ``owners'' of cross seed pollination.
    Subsidies should only be in favor of diversity in crops, and 
availability of healthy food to the public. I only buy organic and the 
toxicity of chemicals, and dead soil is a huge international problem. 
We must build healthy soil to build a healthy planet.
                                 ______
                                 
                         Comment of Yvette Tapp
    Date Submitted: Friday, May 18, 2012, 2:27 p.m.
    City, State: Santa Fe, NM
    Occupation: Film Office Manager
    Comment: I am a vegan for 30 years, and I do my best to find 
organic foods to purchase for myself and my son. It is unethical to 
allow Monsanto, Bayer, et all to label GMO and pesticide infused plant 
foods as ``Natural'', as this is clearly misleading to the consumer. We 
must restore respect for Nature and grow organic crops, stop eating 
sentient beings, stop polluting, wasting water and grains, return 
stolen lands to indigenous Buffalo, wolf, prairie dog, people. We need 
an end now to subsidizing the cattle ranchers and big polluters, 
allowing tax loopholes for the wealthiest and the corporations, ban 
Monsanto, Bayer Neonicotinoids, and bring indigenous wisdom into the 
school system. Greed has taken over where sacred once prevailed, and 
this must be reversed immediately. Nature has balanced Life quite well, 
and human beings must realize that interfering with Nature while 
revering money is taking all Life and Planet Earth into a downward 
spiral. Human health in body, mind and spirit depends upon the organic 
vegan diet, honesty, and generosity.
                                 ______
                                 
                       Comment of Margaret Tarbox
    Date Submitted: Friday, May 18, 2012, 5:13 p.m.
    City, State: Boxford, MA
    Occupation: Retired
    Comment: Hello Members of the House Committee on Agriculture,

    Please give us a bill that will allow for a fair chance for organic 
farms large or small.
    I am a member of a small Garden Club organization NGC. We would 
greatly appreciate your help.
            Thank you,

Margaret E. Tarbox.
                                 ______
                                 
                       Comment of Bianca Tarlton
    Date Submitted: Friday, May 18, 2012, 9:42 p.m.
    City, State: Midlothian, VA
    Occupation: Teacher
    Comment: Dear Members of the House,

    I implore you to please listen to your citizens and change 
America's food system. Frankly, I am irritated by the fact that most of 
you listen to big agricultural companies that put money in your 
campaign pockets more than the people who vote you in office. I work 
hard for my money, and I do not appreciate my tax dollars being spent 
subsidizing ``Big Ag.'' I have 3 children, and I have taught many more 
over my teaching career, and I want them to actually be able to live in 
a world that produces real food that is produced using sustainable 
methods without chemicals and/or hormones. The current farm bill makes 
it difficult for this to ever be possible. Many of us Americans believe 
in eating real food, and if it's not real, we have the right to know it 
before we buy it. If all of us don't speak up, it is only out of 
ignorance--since our government does not require labeling of GMOs and 
the like, many people are oblivious to what they are eating. This is 
definitely not a coincidence. It definitely benefits ``Big Ag'' when no 
one knows what they are eating. If all of our food was produced using 
sustainable and organic methods, there would be no need to label 
anything. Please listen to the people you represent and support smaller 
farms who do produce their food in this manner. The following is what I 
request of you:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

            Thank you,

Bianca Tarlton.
                                 ______
                                 
                      Comment of Barbara Tartaglia
    Date Submitted: Friday, May 18, 2012, 7:43 p.m.
    City, State: Brick, NJ
    Occupation: Business Owner
    Comment: Please help and support the smaller farms and organic 
farms so they can continue their business to grow fruits, vegetables 
and raise beef, chicken and produce eggs, milk, cheese, etc. There are 
so many people that choose to or need to eat organic foods for their 
health. To get into the studies of how pesticides and chemically 
altered foods are affecting our health in this small space would take 
up too much time and space but they are fact and the results are 
astounding.
                                 ______
                                 
                       Comment of Bonnie Tarttier
    Date Submitted: Friday, May 18, 2012, 12:00 p.m.
    City, State: Germantown, NY
    Occupation: Nutritionist
    Comment: It is an urgent matter before us as a nation. When big 
agricultural ``farming dictates to the small farmer and small farmers 
are harassed by the agents of the FDA, then we are in big trouble. I 
urge you to vote for the small farmers, the organic farmers, those who 
are concerned about the health of the soil and the People of this 
nation. Do not be so blind as to think that big ag is doing anything in 
the best interest of the People.
            Best regards,

Bonnie Tarttier
                                 ______
                                 
                        Comment of Beverly Tate
    Date Submitted: Friday, May 18, 2012, 3:48 p.m.
    City, State: Kapolei, HI
    Occupation: Student
    Comment: Stop GMO's! Promote organic farming practices! Stop 
pesticide poisoning of America! Stop companies like Monsanto! Stop 
patents on seeds! If you feed America healthy food at a reasonable 
price health care reform will be much easier as less people will be 
sick!
                                 ______
                                 
                    Comment of Melindria Tavoularis
    Date Submitted: Friday, May 18, 2012, 5:43 p.m.
    City, State: Lincoln, ME
    Occupation: Fine Artist
    Comment: It is tantamount to the health and well being of Americans 
that all the provisions of the Local Foods, Farms and Jobs Act be 
endorsed. I believe strongly in the EQIP Organic Initiative, and the 
Beginner Farmer and Rancher Opportunity Act. The Conservation 
Stewardship Program to preserve the health of the land we farm is 
essential to our future. Please do not be swayed by the pressures 
imposed on our government by the giant corporations in the agricultural 
field. They are basically focusing on their profits in the field of 
agriculture, and not on the health and well being of our farming land. 
The small farms scattered throughout our country are truly the stewards 
of our land.
                                 ______
                                 
                      Comment of Constance Taylor
    Date Submitted: Saturday, May 19, 2012, 1:27 p.m.
    City, State: Phoenix, AZ
    Occupation: Professional Manager & Student
    Comment: Please consider increasing funds for emerging food 
producing and distributing enterprises such as small-scale agricultural 
and production, community gardens, farmers' markets, CSA programs, 
school agricultural projects, and the protection of rural and peri-
urban agricultural land. Also, increase funding for research project 
directed toward these initiatives.
            Thank you,

Constance Taylor.
                                 ______
                                 
                        Comment of David Taylor
    Date Submitted: Thursday, April 26, 2012, 12:55 p.m.
    City, State: Purlear, NC
    Occupation: Customer Service
    Comment: The problem with hunger in this country is going to get 
out of hand if something isn't done now. We have been through a 
struggle recently but things are definitely turning around. Each of us 
should remember that no matter what your status is the food we eat all 
comes from someone who grew it or raised it. Farming in the United 
States is beginning to make a comeback. Why would anyone want to 
undermine this? Farmers need our support and encouragement to continue 
to grow. Furthermore, more and more people are turning to organic, 
healthy, traditional foods. So there will be a need for more farms and 
a bonus is that more farms means more jobs. I encourage all members of 
this committee to do all that is in their power to create a path for 
farmers and agriculture in our country that will ensure their ease in 
feeding us.
            Thank you,

David.
                                 ______
                                 
                         Comment of Dean Taylor
    Date Submitted: Friday, May 18, 2012, 5:19 p.m.
    City, State: Lyman, ME
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: We need to be supporting small people powered farms that 
are not involved in using toxic chemicals, pesticides, and genetically 
modified seeds The only reason there is a market for these crops is the 
lack of labeling (choice) WE need to help the farmers who are taking 
care of this fragile planet we live on. Stop subsidizing the richest 
farmers and support the farmers growing the healthiest food .Thank You 
in advance. Have a good day. P.S. You don't even have a way to express 
in this form the type of farms we need. You can only pick one crop. Our 
farm fits seven categories and is very small. Our customers can enjoy a 
variety of foods from one farm. One part of the farm benefits the other 
parts just like in nature.
                                 ______
                                 
                        Comment of Derek Taylor
    Date Submitted: Friday, May 18, 2012, 12:30 p.m.
    City, State: Seattle, WA
    Occupation: Social Worker
    Comment: Subsidies to farmers seem to focus on soy beans, corn and 
wheat. I am not convinced this is the best use of my tax dollars. I am 
particularly concerned about government subsidies to corn producers. In 
addition to having little nutritional value, the production and 
consumption of corn carries serious negative externalities. Obesity, 
increased E. coli in cattle, dead zones in the oceans near coastal 
areas and the general decline in top soil quality are just a few. These 
externalities disproportionately affect the poor (e.g., if I can buy 2 
Whoppers for $2, why eat oranges or broccoli?) As a nation we currently 
pay much less of a portion of our income for food than we did 60 years 
ago. However, these savings are illusory as healthcare costs have 
spiraled out of control due to negative consumption externalities 
associated with products made from corn. I would very much like my tax 
dollars to support organic sustainable farming that produces 
inexpensive nutritional food. Thank you.

Derek Taylor.
                                 ______
                                 
                        Comment of James Taylor
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Houlton, ME
    Occupation: Retired
    Comment: The current industrial food-production system is both 
unhealthy and unsustainable. It must be reformed or we and our land 
will be increasingly poisoned. Please take the side of the American 
people over the industrial food-production lobbyists!
                                 ______
                                 
                        Comment of Joshua Taylor
    Date Submitted: Friday, May 18, 2012, 9:27 p.m.
    City, State: Fargo, ND
    Comment: In order for the country to hold any sanctity or sanity 
for the future it starts with Morals and farming. Without either we are 
doomed. No farmers, no food, no morals, we corrupt.
    I have told people around the world that farmers are the most 
needed and respected profession. Do not dismiss a person who works 365 
days a year or a family that lives off of that work. Demand is being 
made on my end that you keep it clean and fair. Help them survive, now 
and forever.
                                 ______
                                 
                         Comment of Judy Taylor
    Date Submitted: Thursday, May 17, 2012, 11:52 a.m.
    City, State: St. Louis, MO
    Occupation: Public Relations
    Comment: Let's get the conservation and eco-friendly back into our 
ag. regulations. There is no time to waste. When considering each and 
every one of the world's children and grandchildren, we need to assure 
them a comfortable supply of our precious natural environment.
                                 ______
                                 
                        Comment of Karen Taylor
    Date Submitted: Friday, May 18, 2012, 9:26 a.m.
    City, State: Burbank, CA
    Occupation: Educator/Filmmaker/Director of Nonprofit
    Comment: The U.S. should label GMO's and have a 100% organic 
requirement in the food supply. Americans should have complete and 
honest information on what their food is. Farmers should Not have to 
live in fear of actions taken by large agribusiness and/or companies 
like Montsanto.
                                 ______
                                 
                         Comment of Kirk Taylor
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: Yelm, WA
    Occupation: Retired
    Comment: Giant agricultural concerns are, apparently, concerned 
only with profits . . . doesn't sound too bad, until one sees what this 
has done to the soil itself. Monoculture is un-sustainable, anathema to 
continued life.
    I never dreamed that the dust bowls of the 1930's could be 
forgotten, but it seems the case . . . The ``Superweeds'' and ``Super 
pests'' won't save us . . . The giant Corporations are trying to drag 
us down for the money. Only a Government who cares and listens to the 
people can stop this mess.
                                 ______
                                 
                        Comment of Melvin Taylor
    Date Submitted: Thursday, May 10, 2012, 12:25 a.m.
    City, State: Sacramento, CA
    Comment: Food safety is very important to everyone and cuts would 
deeply hurt that safety and place all of us in danger. Millions depend 
on food programs for eat and limiting the bill would increase hunger.
                                 ______
                                 
                       Comment of Patricia Taylor
    Date Submitted: Friday, May 18, 2012, 8:40 p.m.
    City, State: Vancouver, WA
    Occupation: Retail Manager
    Comment: I owned a farm in Nebraska during the 1970's. Things have 
changed a lot since then. Hormones in the milk, I had a grade A Dairy, 
to get more production from the cows. I eat organic food including 
meats. There comes a time when money is not the bottom line. Our 
health, including our children, is far more important. We need to have 
more respect for nature.
                                 ______
                                 
                        Comment of Ronni Taylor
    Date Submitted: Saturday, May 19, 2012, 9:41 a.m.
    City, State: Tiffin, OH
    Occupation: Teacher
    Comment: Please support organic and sustainable agriculture. Your 
grandchildren and great grandchildren deserve healthy food to allow 
them to grow, thrive, and succeed in their lives. Rich or poor, if we 
allow big business to take over food production, no amount of money 
will buy healthy food if we wipe out its source.
                                 ______
                                 
                        Comment of Martha Teeter
    Date Submitted: Saturday, May 19, 2012, 10:54 p.m.
    City, State: Bradenton, FL
    Occupation: Acupuncture Physician--Health care
    Comment: It is vital for the health of humans to have good, clean 
and fair food to eat. Industrial agriculture depletes the soils, adds 
toxic chemicals to the food supply.
    Support small local family farms. Create systems to allow local 
food producers to sell to their neighbors . . . More secure to have a 
networks and variety rather than monoculture crops and centralized 
food.
                                 ______
                                 
 Submitted Statement by John Teixiera, Lone Willow Farm, Firebaugh, CA
    1. Organic Is An Important and Growing Part of U.S. Agriculture

    The overall U.S. organic market in 2011 surpassed $31 billion for 
the first time. Organic fruit and vegetables have made up a significant 
amount of this growth. A new report from the Organic Trade Association 
finds the organic food industry generated more than 500,000 American 
jobs in 2010. Organic food sales now represent 4.2 percent of all U.S. 
food sales.

    2. California Leads the Way in Organic Farming

    California leads the nation in terms of number of organic farms, 
land in organic production and organic sales. Organic agriculture is a 
significant economic driver in California and nationally.
    More importantly, organic agriculture represents a significant and 
growing sector of our Valley's farm economy, with an increase number of 
my neighbors adopting organic farming practices because of the 
economic, health and environmental benefits it provides.

    3. Organic Farmers Have Historically Not Benefited From Farm Bill 
Programs

    Some progress has been made to support the sector in the last two 
farm bills, but we cannot slide backwards in the 2012 Farm Bill.
    Organic farmers still need access to conservation programs, 
technical assistance, research, and marketing support. Let me give you 
some specific examples:

  <bullet> Organic Certification Cost-share Program: The cost-share 
        program provides absolutely critical assistance to farmers so 
        they can participate in the USDA National Organic Program. This 
        is a relatively small program in terms of total dollars, but 
        provides significant economic stimulus to the agricultural 
        sector since without this program, many farmers, particularly 
        new and beginning farmers, would not be able to afford to 
        certify as organic. The Senate Committee bill funds this 
        program and we will be looking to you to ensure the House does 
        the same.

  <bullet> Development of locally adapted cultivars: This is another 
        absolutely critical need of organic and conventional farmers 
        alike. Seed is the backbone of agriculture and without the 
        varieties that are best suited to our local climate, soil, 
        disease, and pests we cannot be competitive. The Senate bill 
        failed to include language to make this a priority of USDA 
        competitive grant programs. Again, we need you as Members of 
        the House Agriculture Committee to stand up for farmers and 
        make sure this priority is included.

  <bullet> Organic Production and Market Data Initiative: This farm 
        bill initiative is essential to understanding the dynamics of 
        the organic marketplace and ensuring organic farmers are 
        appropriately covered by crop insurance.

  <bullet> Research: We need a research title that sufficiently meets 
        the needs of the organic farming community so we have the 
        information to address our production issues and continue 
        improving our systems. The Organic Agriculture and Research 
        Extension Initiative needs to be sufficiently funded to address 
        some emerging research needs.

  <bullet> Crop Insurance: We need a farm bill that will address the 
        inequities we face in risk management, specifically to 
        eliminate the unfair 5% premium surcharge on organic crop 
        insurance and ensure that when organic farmers incur a loss, we 
        are reimbursed at organic prices--not conventional prices, 
        which are often below our cost of production.

  <bullet> Conservation: Finally, farm bill conservation programs are 
        critically important to many of us in the Valley. The land 
        stewardship issues we face are more complex than ever. We 
        cannot cut programs like the Conservation Stewardship Program. 
        It is a program that has worked for me on my farm. We also need 
        bill language to strengthen the Environmental Quality 
        Incentives Program (EQIP) Organic Initiative to make the 
        payment cap equal to what other EQIP users have.

    Thank you Congressmen Cardoza and Costa for support of organic 
farmers.

John Teixiera,
Lone Willow Farm,
Firebaugh, CA.
                                 ______
                                 
                         Comment of Amy Teller
    Date Submitted: Wednesday, May 16, 2012, 5:08 p.m.
    City, State: Toms River, NJ
    Occupation: Student
    Comment: As a 23 year old, I want the 2012 Farm Bill to help young 
people get started as farmers--whether they live in suburban, urban, or 
rural areas. This means access to land, capital, training/extension, 
and conservation programs. These steps will lead to job creation for 
young people, veterans, etc., and ensures that we will still have 
Americans producing our food in 20 years. Please see the Beginning 
Farmer and Rancher Opportunity Act for the important provisions to 
young farmers, and put these provisions in the 2012 Farm Bill. Also, I 
want these new, young farmers to be organic farmers, because it is a 
more profitable business, safer for the farmers and their workers, and 
builds healthier soil over time. Productive, innovative organic 
practices do not pollute the environment or harm non-target plants, 
animals, and pollinators like pesticide application does. Therefore, 
programs like OREI (Organic Research and Extension Initiative) and ODI 
(Organic Data Initiative) must be given full funding equal to 2008 
levels. In addition, conservation compliance must be tied to crop 
insurance. In return for subsidizing crop insurance to save farmers 
from a year of crop failure, taxpayers deserve care for our soil, 
water, and air quality. The price of treating water with excess farm 
run-off over time (which will happen if we eliminate the conservation 
requirements that have been tied to subsidies since 1985) will be a 
much greater cost than the implementation of a few conservation 
practices on the farm.
                                 ______
                                 
                        Comment of Frank Tellez
    Date Submitted: Tuesday, May 08, 2012, 2:53 p.m.
    City, State: Tucson, AZ
    Occupation: Unemployed
    Comment: Stop funding Monsanto and quadruple funding for Organic 
farmers please. I have my own backyard garden because Monsanto is 
destroying the food chain. Nothing good, not even jobs, can come from 
this. It's a disaster in the making. Please stop funding Monsanto. By 
funding organic farmers you create more jobs than you do by giving 
Monsanto millions of dollars it doesn't need and you don't destroy all 
life on Earth including humans, bees, or other insects. Nothing, 
absolutely nothing, good come from helping Monsanto destroy the 
ecosystem. Please stop funding Monsanto. Please.
                                 ______
                                 
                       Comment of Robert Tenaglio
    Date Submitted: Friday, May 18, 2012, 12:36 p.m.
    City, State: Upper Darby, PA
    Occupation: Unemployed
    Comment: Stop corn subsidies. Allow independent farmers easier 
access to USDA approved slaughterhouses by making more available, 
especially mobile ones. Change legislation that puts big corporate 
agricultural companies and their processed food ahead of independent 
farmers.
                                 ______
                                 
                      Comment of Myrtle Tengenber
    Date Submitted: Tuesday, May 15, 2012, 10:52 a.m.
    City, State: Pine Hill, NJ
    Occupation: Retired School Secretary
    Comment: I support the food bank and donate whenever they have food 
drives in my area. I worked at a school district and saw how many 
families were needy. With all the waste in government, I think hungry 
children should be the last thing on the list to be cut! By the way, I 
didn't understand the occupation choices.
                                 ______
                                 
                        Comment of Sasha Teninty
    Date Submitted: Thursday, May 03, 2012, 11:52 a.m.
    City, State: Eugene, OR
    Occupation: Student
    Comment: I think that a focus of the farm bill should be an 
improvement of working conditions and rights. While we argue for 
``sustainable'' and ``organic'' foods, the rights of the workers who 
produce our food are cast to the wayside. Why is it that there is no 
minimum wage or substantial representation for agricultural workers? If 
the goal of the farm bill is the encourage healthy, sustainable eating 
practices, why do we not encourage these same values in our labor 
rights? I think that it is extremely skewed that we do not put the 
appropriate significant focus on treatment and rights of workers.
                                 ______
                                 
                         Comment of Tim Terhaar
    Date Submitted: Friday, May 18, 2012, 12:26 p.m.
    City, State: Brooklyn, NY
    Occupation: Freelance (Copyediting, Word Game Content Development)
    Comment: I strongly oppose CAFOs and monoculture farming. We 
desperately need a farm bill that will reverse deregulation, break up 
agricultural monopolies, and support small-scale family farms. I 
believe we should also reinstate commodity reserves for grains. The 
government needs to support sustainable farming practices and begin to 
rebuild regional food systems. Please consider policies that would make 
it easier for low-income communities to access high-quality whole 
foods. Thank you.
                                 ______
                                 
                         Comment of Clara Terry
    Date Submitted: Friday, May 18, 2012, 12:51 p.m.
    City, State: Wooster, OH
    Occupation: Retired
    Comment: I am a consumer of the food that our farmers produce and I 
am SICK and tired of eating genetically altered food. It's unhealthy 
and dangerous. We need Organic farming to promote healthy living and 
for the Health And Welfare Of Future Generations To Survive.
                                 ______
                                 
                         Comment of John Terry
    Date Submitted: Friday, May 18, 2012, 1:57 p.m.
    City, State: Eureka, CA
    Occupation: Construction
    Comment: The current process used to grow food in the U.S. is not 
sustainable. The amount of fossil fuels used is enormous, with fuel 
prices rising and continuing to rise it only means food prices will do 
the same. Use of such large equipment and petroleum based fertilizers 
should be stopped. These processes are unnecessary in the production of 
food. Companies should be diversifying our food production industry to 
provide food more on a local level to also cut back on fuel 
consumption. People talk about loosening our dependence on foreign oil, 
better farming practices would help. Furthermore, I don't want to eat 
anything artificial. This means anything added to the food at any point 
in time that wouldn't happen naturally. Including pesticides, 
fortifications, preservatives, and genetic modifications. If people 
claim we are helping fight world hunger the correct answer is no we 
aren't. Not with these practices. We are promoting world dependence 
(talk about living off the system). There are numerous better ways to 
grow food ecologically and sustainably. Thank you for your time and 
considerations.
                                 ______
                                 
                      Comment of Annette Terziotti
    Date Submitted: Friday, May 18, 2012, 3:03 p.m.
    City, State: Orange, VA
    Occupation: Structural Engineer
    Comment: Let us have exactly the food we want. Leave the raw milk 
farmers alone. Stop trying to destroy everything that isn't Monsanto. 
Stop using the food system to poison the population so those invested 
in it can profit on our illnesses. All disease is manmade. This is the 
dirtiest food system in the world and of course we have the most 
sickness. The sicker we get the more money they make and it's wrong! 
The FDA, USDA, & EPA ought to be shut down,. They work for the chemical 
companies. We should have every right to farm and sell to anyone we 
wish! I'm so sick of the FDA's gangsters & thieves trying to destroy 
and ruining wholesome decent farmers while the factory farms produce 
products that are unfit for Any kind of consumption. Shut Down The 
Factory Farms Every Last One Of Them And Leave The Clean Farmers Alone!
                                 ______
                                 
                         Comment of Anna Tesch
    Date Submitted: Friday, May 18, 2012, 5:47 p.m.
    City, State: Oak Harbor, WA
    Occupation: Stay-at-Home Mother
    Comment: As a mother of children with food additive allergies and 
an individual who cares about her local community, I urge you to please 
understand the importance of the future of farm policy. Local farming 
has the unique opportunity of not only improving our health as 
Americans, but also employment rates. Please consider this as you make 
your decisions.
    Thank you.
                                 ______
                                 
                        Comment of Joseph Testa
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Thousand Oaks, CA
    Occupation: Computer Programmer
    Comment: Hello,

    I would like to submit my comments for consideration of the House 
Agriculture Committee. As a voter and taxpayer, I think it's critically 
important to be informed of these matters and to voice our concerns.
    I support and encourage:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    The subsidized insurance program as currently proposed will allow 
giant commodity farmers and insurance companies to walk away with 
billions in taxpayer dollars while putting the land, soil and 
environment at greater risk. We cannot allow this to happen.
    Thank you for your consideration.
                                 ______
                                 
                        Comment of Carla Tevelow
    Date Submitted: Saturday, May 19, 2012, 8:56 p.m.
    City, State: Dayton, MD
    Occupation: Consultant
    Comment: Several of my thoughts are:
     Please consider the full endorsement of:
    All provisions of the Local Foods, Farms and Jobs Act (H.R. 3286).
    Fully funding conservation programs, such as the Conservation 
Stewardship Program, and making sure that enrollment in any new 
insurance subsidies are tied directly to compliance with conservation 
programs.
    The implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236).
    Maintaining the EQIP Organic Initiative.
    Also, the $33 million you would like to take away from the Food 
Stamp Program (or SNAP) is inhumane. Please reconsider this as i don't 
like to think our country wants to promote hungry children and hungry 
citizens.
    And last, please enact and promote more organic farming in this 
country. The pesticides are killing bees and GMOs are changing the 
health of our society.
    Thank you for consideration and please take steps to alter the way 
our country produces its food and deals with farmers, it's time to get 
back to nature and leave the petrochemicals off of our food.
                                 ______
                                 
                       Comment of Michael Tevlin
    Date Submitted: Sunday, May 20, 2012, 11:17 p.m.
    City, State: Portland, CA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Dear Chairman Lucas,

    Please do everything you can to support small farmers. No joke, the 
fabric of America is falling apart. Farming is the most honest job in 
America, and good food made by local producers is the solution to a lot 
of our problems. Think of a world of small family farms and an 
agricultural revolution in the U.S. where people know their food, their 
farmers, their neighbors, and where all their food and goods come from. 
It'd be a beautiful world. Politicians don't usually do things that 
make sense and our system of government delays the things that really 
need to be done ASAP, but you should consider it. I ask that the 
Committee endorse all of the provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Michael Tevlin,
[Redacted],
Portland, OR.
                                 ______
                                 
 Submitted Letter by Arden Tewksbury, Manager, Progressive Agriculture 
                              Organization
March 9, 2012

To: Chairman Frank D. Lucas and the Members of the United States House 
            of Representatives Agriculture Committee

From: Arden Tewksbury, Manager of Pro-Ag

    I want to thank Chairman Lucas and the House Agriculture Committee 
for allowing me to present the Progressive Agriculture Organization's 
(Pro-Ag's) views and recommendations to the Committee regarding the 
dairy farmers' crisis.
    It is imperative that all Members of the Agriculture Committee (and 
all Members of Congress) fully understand the serious financial crisis 
that the majority of dairy farmers are facing all across the United 
States.
    During 2009 the dairy farmers across the United States lost 
approximately $17.7 billion. This figure is derived by using the 
national average cost of producing milk of $22.28 per hundredweight 
(cwt). This figure is released by the Economic Research Service, a 
division of the USDA.
    The USDA also released figures that indicated the All Milk Price in 
2009 was $12.80 per cwt.
    These figures indicate the $17.7 billion loss to dairy farmers. 
While prices paid to dairy farmers did recover somewhat in 2011; 
however, these pay prices are now plummeting again.
    It is unthinkable that these prices are allowed to continue to de-
escalate this year.
    Pro-Ag, along with at least 23 other organizations, is urging the 
U.S. Congress to legislate a floor price of $20.00 per cwt. under all 
milk used to manufacture dairy products. This would be a temporary 
solution to the dairy farmers' plight until a permanent dairy bill is 
passed by Congress.
    During the middle of February, officials of the National Family 
Farm Coalition delivered a letter to all Members of Congress urging the 
$20.00 per cwt. floor price be implemented.*
---------------------------------------------------------------------------
    * Editor's note: the statement was incomplete as submitted.
---------------------------------------------------------------------------
    Herd Termination Act, and the Milk Diversion Act. Both programs 
were short-lived as well as being costly to taxpayers and the dairy 
farmers. Neither programs solved the dairy farmer's problems.
    On January 1, 2000 the USDA implemented ``Order Reform''. We 
strongly opposed it, as did many other dairy farmers. We pointed out 
many pitfalls of Order Reform during various hearings. Presently many 
organizations are clamoring for changes contained in Order Reform.
    However, we strongly feel that S. 1640 contains the changes that 
are needed in order to develop a pricing formula that will assure our 
American dairy farmers a chance to produce milk at a profit. Dairy 
farmers must have an opportunity to recover their extreme high cost of 
production. Certainly everyone must be aware of the high cost of corn, 
hay, and other feed used by dairy farmers. It is our belief that the 
conversion of corn to produce ethanol shares some of the responsibility 
for higher feed costs. Dairy farmers must have a chance to recover 
these costs.

    1. Dairy farmers must have a cost of production formula.

    2. A milk supply management program is needed at the farm level. 
        This program must not cost the government any money.

    3. Imports of unneeded dairy products such as milk protein 
        concentrate (MPC) and casein must be brought under control.

    S. 1640 (The Federal Milk Marketing Improvement Act) addresses all 
three of the above-mentioned items.
    In conclusion, we believe that S. 1640 is the way to solve the 
dairy farmers' dilemma.
    Proposed insurance programs will continue to be costly to the USDA 
and the dairy farmers.
    Everyone must remember that in addition to feed costs there are 
other substantial costs that must be covered on a dairy farm.
    The only way dairy farmers have a chance to cover their costs is by 
Congress implementing a dairy bill like S. 1640.
    Thank you very much.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
Arden Tewksbury, life-long dairy farmer of Meshoppen, Pennsylvania, and 
            Manager, Progressive Agriculture Organization.
                              attachment 1



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              attachment 2

     Estimated Pay Price to Dairy Farmers Under the Federal Milk Marketing Improvement Act of 2011 (S. 1640)
----------------------------------------------------------------------------------------------------------------
                                Class II Basic      Class I                        Price Paid to      Class I
        Federal Order              Formula        Differential       Class I         Dairymen       Utilization
----------------------------------------------------------------------------------------------------------------
                   1--Boston            $22.00            $3.25           $25.25          $23.51           46.5%
              5--Appalachian            $22.00            $3.10           $25.10          $24.05           66.3%
                  6--Florida            $22.00            $4.00           $26.00          $25.36           84.0%
       7--Southeast; Atlanta            $22.00            $3.10           $25.10          $23.83           59.3%
         30--Midwest/Chicago            $22.00            $1.80           $23.80          $22.28           16.0%
     32--Central/Kansas City            $22.00            $2.00           $24.00          $22.36           31.4%
       33--Mideast/Cleveland            $22.00            $2.00           $24.00          $22.77           38.4%
     124--Pacific NW/Seattle            $22.00            $1.90           $23.90          $22.56           29.5%
       126--Southwest/Dallas            $22.00            $3.00           $25.00          $23.09           36.4%
                131--Arizona            $22.00            $2.35           $24.35          $23.09           37.5%
                  California            $22.00            $1.90           $23.90          $22.34           18.0%
----------------------------------------------------------------------------------------------------------------
This pricing formula was compiled by Arden Tewksbury, Manager, Progressive Agriculture Organization, to more
  effectively equalize the prices paid to dairy farmers in the United States.
These figures approximately represent current economic conditions. ``Price Paid to Dairymen'' reflects the price
  dairy farmers would receive under S. 1640.
These pay prices will be readjusted four (4) times per year.

                              attachment 3
September 26, 2011

    The Following Is a Summary of ``The Federal Milk Marketing 
Improvement Act of 2011''

    (1.) ALL milk produced in the United States will be priced on the 
        national average cost of producing milk on the dairy farms.

    (2.) ALL milk used for fluid purposes will be classified as Class 
        I.

    (3.) ALL milk used for manufacturing purposes will be classified as 
        Class II.

    (4.) The Class II price will be the national average cost of 
        production. This price will be uniform in all Federal and state 
        Orders as well as unregulated areas. The Class I price will be 
        determined by using the Class II price plus the existing Class 
        I differentials that are currently in place in each Federal 
        Order. The State of California and other unregulated areas will 
        be assigned a Class I differential by the U.S. Secretary of 
        Agriculture.

    (5.) ALL Federal and State Milk Marketing Orders will remain 
        intact. Each Milk Marketing Order will be responsible for 
        determining the component value of milk.

    (6.) This Proposal prohibits any cost of operating milk 
        manufacturing plants (commonly called ``Make Allowance'') to be 
        levied on dairy farmers.

    (7.) The U.S. Secretary of Agriculture will adjust the value of 
        milk four times a year.

    (8.) This Proposal calls for an inventory supply management 
        program. The program is aimed at preventing a buildup of 
        domestic milk products and prevents foreign milk products from 
        destroying dairy farmer prices.

    (9.) The inventory management program cannot be implemented unless 
        the exports of dairy products exceed the imports of dairy 
        products.

    (10.) ALL dairy farmers will fund the inventory management program. 
        If and only if the program is necessary, then all dairy farmers 
        will receive a lower price on up to 5% of their production. 
        This price will be \1/2\ of the value of manufactured milk. 
        However, the dairy farmers will receive the correct price on 
        95% of their milk. Please remember if the inventory management 
        program is not implemented, then the dairy farmers will receive 
        the full price. Also, the U.S. Secretary of Agriculture may 
        decide that only a reduction of one or two percent of total 
        production may be sufficient.
                              attachment 4
March 2012

    Explaining the Profit Margin in the Casey Bill; S. 1640

    By Arden Tewksbury, Manager of Pro-Ag

    The proper way to determine the profit (in my opinion) in S. 1640 
is the following:
    I'm still using the $22.00 per hundredweight (cwt.) as the National 
Average Cost of Producing milk in the United States. As S. 1640 states, 
the $22.00 per cwt. becomes the Class II price for all milk used for 
manufacture dairy products all across the United States. (Currently the 
majority of milk used to manufacture dairy products carries the same 
value. Many times this value has been way too low).
    In Order number I (the Boston Market) the pay price to dairy 
farmers would have been $23.51 per cwt., therefore the profit to the 
average Dairy Producers in Order I would have been $23.51 per cwt. 
price less the National Average Cost of Production (also the Class II 
price.) This figure comes to $1.51 per cwt. But, to figure the profit 
accurately we must take the National Average Cost of Production and 
subtract the average cost of production in a particular State. In 
Pennsylvania the Economic Research Service (ERS) calculates the current 
cost of production to be $20.83. Therefore when you subtract $20.83 
(the average cost of producing milk in Pennsylvania) from $22.00, which 
we are using as the National Average Cost of Production, we find the 
average dairy farmers in Pennsylvania is receiving a margin of $1.17 
per cwt. By adding the margin of $1.17 per cwt. on his cost of 
production advantage to his profit on the value of his milk leaves the 
average profit to a Pennsylvania dairy farmer of $2.68 per cwt. A dairy 
farmer in Pennsylvania producing 100,000 pounds of milk per month would 
generate a profit of $2,680 on his production. For 12 months his profit 
would be $32,160. Of *
---------------------------------------------------------------------------
    * Editor's note: the attachment was incomplete as submitted.
---------------------------------------------------------------------------
                              attachment 5
    Urgent: Dairy Farmers Need Your Help

February 14, 2012 (Updated March 5, 2012)

    Dear Honorable Members of the Senate and House of Representatives,

    We are requesting that the United States Congress take immediate 
action to prevent a financial crisis from impacting the majority of 
American dairy farmers that may mirror the devastation that all dairy 
farmers experienced in 2009.
    We are urging Congress to intercede and establish a minimum floor 
price of $20.00 per hundredweight (cwt.) under all milk used to 
manufacture dairy products produced in the United States. The existing 
Class I differentials will be added to the floor price and will 
establish the Class I price.
    Butter and cheese prices at the Chicago Mercantile Exchange (CME) 
have plummeted from $2.10-$2.15 per lb. since August of 2011, down to 
the present level of $1.45 per lb. These prices will soon work their 
way into the National Agriculture Statistics Service (NASS) survey, 
which is used by the USDA to establish milk prices in all Federal Milk 
Marketing Orders.
    It is conceivable that prices paid to dairy farmers could decrease 
by $7.00 per hundredweight unless immediate action is taken by 
Congress. One thing we know for certain is that operating costs on 
American dairy farms continue to escalate. If raw milk prices fall 
drastically, it will be dairy farmers who will be placed in an 
unbearable situation.
    During 2009 dairy farmers lost more than $17.7 billion based on a 
review of USDA's Economic Research Service (ERS) data, being forced to 
sell their milk for at least $9.00 per hundredweight under their 
operating costs. Many have not recovered these losses and cannot 
sustain another financial bloodbath similar to 2009.
    These low, unstable milk prices paid to dairy farmers are the main 
reason that thousands of dairy farmers have been forced out of 
business. Unfortunately, as dairy farmers exit their farms, we 
continually see a further deterioration of the rural economy all across 
the United States. A fair, stable price paid to our dairy farmers would 
also be beneficial to the manufacturers of dairy products and the 
bottlers of fresh milk. Consumers are also clamoring for fair prices 
for dairy farmers. Thus, a realistic, fair price paid to dairy farmers 
would be beneficial to everyone.
    Many of our organizations and individual dairy farmers have made 
worthwhile suggestions to Congress and the USDA as to how these pricing 
inequities could be corrected. And yet, nothing has been done.
                                 ______
                                 
                       Comment of Cheryl Thacker
    Date Submitted: Sunday, May 20, 2012, 11:06 a.m.
    City, State: Pound Ridge, NY
    Occupation: Lighting Designer
    Comment: Farm policy should make fruits and vegetables cheaper and 
more available to consumers and stop subsidizing the corn that is 
making us obese.
                                 ______
                                 
                         Comment of Karen Thaw
    Date Submitted: Saturday, May 19, 2012, 6:08 p.m.
    City, State: Boston, MA
    Occupation: Retired
    Comment: Support sustainable and nutritious food by allowing local 
farmers to grow fruits and vegetables with no penalties.
    Stop subsidizing corn production for the purpose of increasing 
supply of high fructose corn syrup.
    By subsidizing other nutritious foods--fruits and vegetables, our 
local farmers will be able to supply the public with healthy food.
    We need to maximize affordable healthy food to control dietary 
diseases (i.e., high sugar content in processed foods) such as diabetes 
and hypertension.
    Our society's well being starts with a healthy diet. And this 
starts with a rational and well thought out farm bill.
    Thank you for your attention.
                                 ______
                                 
                         Comment of Gary Thayer
    Date Submitted: Friday, May 18, 2012, 3:31 p.m.
    City, State: San Diego, CA
    Occupation: Editor and Program Director
    Comment: Please keep funding for small farmers! We need to change 
our current farm system from one that favors giant agricultural 
monopolies to one that supports smaller farming operations and 
individual farming families who want to grow organic and sustainable 
agriculture without the use of GMO seeds and pesticides. I now support 
organic farmers whenever possible, but I am lucky; many Americans have 
no access to organic produce. Our current agricultural system will only 
continue this imbalance, and Americans will continue to eat unhealthy 
corn-syrup laden, highly processed foods that make Americans fatter and 
cost the healthcare system (and taxpayers) more money. Let's reverse 
this trend now!
                                 ______
                                 
                         Comment of Linda Thema
    Date Submitted: Friday, May 18, 2012, 4:52 p.m.
    City, State: Nokomis, FL
    Occupation: Psychotherapist
    Comment: Our national health makes this a critical issue. Obesity 
and related healthcare consequences are killing us and our country. Our 
food is ``empty'' of nutrition and loaded with toxins. We must take 
action, now.
                                 ______
                                 
                       Comment of George Theodoru
    Date Submitted: Friday, May 18, 2012, 3:47 p.m.
    City, State: Portage, MI
    Occupation: Service Sector
    Comment: It is time to stop subsidizing the big Ag farms and start 
thinking about the smaller self-sustaining farmers. Large CAFOs, 
Monsanto's GMO products only pollute the environment without solving 
the hunger problem. Subsidizing corn only hides the actual cost of 
ethyl fuels. Time for change!
                                 ______
                                 
                     Comment of Michele Theoharris
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: Arvada, CO
    Occupation: Mother
    Comment: I want to serve my family wholesome food and this means we 
need more farmers growing food not commodities. It is a shame we do not 
grow enough fruits and veg in this country for everyone to eat the USDA 
recommended amount. I will not feed my family GM crops.
                                 ______
                                 
                        Comment of Daley Theresa
    Date Submitted: Saturday, May 19, 2012, 7:52 a.m.
    City, State: New Canaan, CT
    Occupation: Artist/Businesswoman
    Comment: I am ashamed that America is one of the only countries in 
the western world that does not safeguard organic farming or put proper 
controls on what biotech corporation can promote and sell to farmers, 
while hiding the truth of any negative effects or potential dangers to 
the environment and human's, from consumers. It's absolutely unethical 
and not worthy of America's ideals. Common America, you are not leading 
the way so far, you are tail-end Charlie!
                                 ______
                                 
                         Comment of Janet Thew
    Date Submitted: Wednesday, May 16, 2012, 11:53 p.m.
    City, State: Loomis, CA
    Occupation: Planning Commissioner
    Comment: I support retention of funds for conservation easements, 
but not for crop supports and funds going to wealthy landowners. Small 
family farms should be the priority, but farming is a business like any 
other, and success should not be guaranteed by the taxpayer.
    I strongly support eliminating the Wildlife Services Dept., which 
wastes millions of dollars and millions of lives solely for the benefit 
of ranchers. Ranchers should not be given such total control of USDA. 
Please read the recent investigative series on this issue in the 
Sacramento Bee.
                                 ______
                                 
                         Comment of Randy Thill
    Date Submitted: Friday, May 18, 2012, 6:04 p.m.
    City, State: Bisbee, AZ
    Occupation: Artist
    Comment: Pretty soon we won't need wars to keep the population 
down, cause everyone will die of the food they buy in the stores. 
Please assure future generations that our country cares about them, the 
planet they live on, and the sanity of our government. Support organic 
agriculture, force large food producers to be liable for healthy 
practices, and cut funding to those who care more about the bottom line 
than the nutrition of the food they are producing. Now is the best time 
. . . before there is nothing to work with. We are already at a point 
that I fear eating about 90% of the foods offered in most grocery 
stores. Please do your best to get us back on the right track 
agriculturally!
                                 ______
                                 
                   Comment of Rebecca Thistlethwaite
    Date Submitted: Thursday, May 17, 2012, 12:08 p.m.
    City, State: Mosier, OR
    Occupation: Director of Nonprofit Organization
    Comment: We must limit commodity payments and insurance subsidies. 
Use that saved money to fully fund conservation programs that work, 
rural development, beginning farmer programs especially expanded loans, 
community food security projects, farm-to-school, and full funding for 
SNAP.
                                 ______
                                 
                      Comment of Barbara W. Thomas
    Date Submitted: Thursday, April 12, 2012, 11:02 p.m.
    City, State: Las Cruces, NM
    Occupation: Retired Bookkeeper
    Comment: My home church, Trinity Lutheran (ELCA) operates a food 
pantry and receives our food almost exclusively through the New Mexico 
Roadrunner Food Bank. Aside from the TEFAP food that we receive for 
this project, all other food must be paid for. Our congregation has 
less than 100 active family units, and yet has been able to provide 
food for roughly 100+ needy families as often as twice a week.
    Our congregation members have been donating funds to purchase the 
food that we cannot get from TEFAP.
    However, the number of families that have come to us for food 
assistance is steadily increasing, but our congregation's membership 
has not increased, which means that we have only a finite amount of 
money donated each month with which to purchase food to give away that 
we do not receive for ``free''.
    If TEFAP funding is reduced nationwide, then there are fewer pounds 
of ``free'' food available for each food bank to give away, and thus 
for our church to give away. Therefore to feed everyone who comes then 
will mean that each family will receive less food than they have been 
receiving currently, since we have only a finite amount of donations 
with which to purchase food each month.
    I help bagging produce for this project which means that I am ready 
to leave just as families start to be processed to receive an allotted 
portion. In our lobby I see old people, multi-generation families, and 
young families--often with two or more little children--waiting their 
turn to receive help.
    It makes me sad to know there are so many people with food 
insecurity; it affects me personally because my daughter and her 
husband attend college, and often they are feeding friends of theirs in 
addition to their own three young sons because there are few jobs 
available, and so their family's food runs out, and so I am buying food 
so my grandchildren can eat. The 9 year and 11 year olds have even told 
me, ``we are very poor'', and are so excited to get to drink milk at my 
house.
    I have written in detail so that you who help determine food policy 
for the next fiscal year will not forget that the folks who need food 
help the most are the ones at the bottom of the economic ladder. Please 
be generous in funding food stamps, TEFAP, and other food assistance 
programs so that ``for the least of these'' there will be enough to 
eat.
    Thank you.
            Respectfully,

Barbara W. Thomas.
                                 ______
                                 
                         Comment of Ella Thomas
    Date Submitted: Friday, May 11, 2012, 9:25 a.m.
    City, State: Kansas City, MO
    Occupation: Disabled Senior
    Comment: I am one of those Senior Americans that need the 
assistance of the SNAP program. Please, don't cut this program, it is 
very important for us and the children in need. The poor are in the 
churches too, so their funds are down. Our country helps everyone else 
Help Us Too.
                                 ______
                                 
                       Comment of Margaret Thomas
    Date Submitted: Friday, May 18, 2012, 12:22 p.m.
    City, State: Rock Island, IL
    Occupation: Teacher
    Comment: We need to develop policy that encourages the organic 
production of fruits and vegetables, and discourages production of 
sweeteners, and meat raised in confined factory-like settings. Please 
keep our health in mind as you discuss agriculture policy.
                                 ______
                                 
                         Comment of Mary Thomas
    Date Submitted: Friday, May 18, 2012, 3:24 p.m.
    City, State: Weed, CA
    Occupation: Educator, Gardener and Beekeeper
    Comment: I support maintaining the EQIP Organic Initiative, the 
implementation of all provisions of the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236), the full endorsement of all provisions of 
the Local Foods, Farms and Jobs Act (H.R. 3286) and Fully funding 
conservation programs, such as the Conservation Stewardship Program, 
and making sure that enrollment in any new insurance subsidies are tied 
directly to compliance with conservation programs. Please Do Not cut 
the Food Stamp program. Do you know how many people depend on them to 
thwart hunger among their children? Please support small farmers. Open 
your eyes and see that Big Ag is the cause of so many of our woes. 
Thank you.
                                 ______
                                 
               Joint Comment of Robert and Lillian Thomas
    Date Submitted: Friday, May 18, 2012, 9:42 p.m.
    City, State: Mount Jackson, VA
    Occupation: Retired
    Comment: As the committee considers the 2012 Food and Farm Bill, I 
urge you to support the small farms that really need help, not the huge 
corporate farms.

  <bullet> Fully fund programs that support organic farmers and rural 
        development.

  <bullet> Limit or do not fund CAFO's.

  <bullet> Support critical nutrition programs.
                                 ______
                                 
                        Comment of Mary Thomason
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Boerne, TX
    Occupation: Teacher
    Comment: Please protect our farmers, our organic food, and our 
markets from genetically modified food products! Let us eat healthy and 
keep the chemicals at bay!
                                 ______
                                 
                        Comment of Ben Thompson
    Date Submitted: Friday, May 18, 2012, 7:00 p.m.
    City, State: Mt. Vernon, IA
    Occupation: Student
    Comment: Agricultural production is one of the largest contributors 
to climate change. It doesn't have to be that way though. Current farm 
policy also promotes junk food for children. The obesity epidemic will 
prove to be a significant drain on the country's resources in the 
future, and it will cost many their lives. Government debt is also out 
of control, we need remove all unnecessary subsidies, especially those 
that hurt Americans. Though smart policy we can reduce our carbon foot 
print, save American lives, and reduce frivolous spending. (I would be 
in support of subsidies if they got healthier food to kids or reduced 
our carbon footprint--that does not include biofuel subsides).
                                 ______
                                 
                       Comment of Cindy Thompson
    Date Submitted: Saturday, May 19, 2012, 7:41 a.m.
    City, State: Pebble Beach, CA
    Occupation: Medical Technician
    Comment: It is time the citizens of the USA are given an informed 
choice about they eat. At the present moment we are being used as 
guinea pigs in a huge experiment for profit by big agro that we are 
supporting with our own tax dollars!
    And as is apparent by the increase in obesity, chronic disease, 
cancer and birth defects it is not working.
    We need to label our foods and stop supporting big agro with our 
tax dollars at a minimum. Supporting small organic farms would be the 
best and healthiest future for all of us.
                                 ______
                                 
                      Comment of Colleen Thompson
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Jackson, WY
    Comment: Agribusiness has a stranglehold on our food supply. The 
growing diabetes epidemic is one consequence of the prevalence of over-
processed, unhealthy food in our culture, since subsidized foods are 
less expensive to the consumer. While I don't want the government to be 
a Big Brother and tell us what we can and can't eat, I also don't 
believe that incentivizing awful food choices is a desirable 
governmental role, either, especially when it's making us sick and 
adding to the health care burden everybody is complaining about.
                                 ______
                                 
                       Comment of Gayle Thompson
    Date Submitted: Friday, May 18, 2012, 4:39 p.m.
    City, State: Ionia, MI
    Occupation: Literacy Director
    Comment: Once upon a time healthy farming was a way of life. Many, 
many, many Americans want it to be that way again, whether you are 
hearing from them or not. We need to go back to small farmers who are 
not controlled by corporations. All the antibiotics feed to farm 
animals have produced a generation of people unaffected by antibiotics 
given by their doctors. Corporate farms care about profits only--every 
single person in the United States knows this even though the 
government keeps pretending we don't know. Bring back small, local 
farmers who can make a living and contribute to their communities. Who 
live in their communities and want to give the best product they can to 
their neighbors. We cannot continue the practice of ignoring healthy 
food and continuing to support outlaws like Monsanto. It's time for 
healthy food. Please see that that change happens.
                                 ______
                                 
                      Comment of Heather Thompson
    Date Submitted: Saturday, May 19, 2012, 10:26 p.m.
    City, State: Carol Stream, IL
    Occupation: Homemaker
    Comment: I vote everyday with my food dollars, organic food just 
makes good common sense, We Need an Organic Farm Bill. People are 
waking up, local, organic, sustainable agriculture is critical to our 
economy and the planet.
                                 ______
                                 
                       Comment of James Thompson
    Date Submitted: Friday, May 18, 2012, 11:58 p.m.
    City, State: Ogden, UT
    Occupation: Registered Nurse
    Comment: I don't know how the SNAP funding got tucked into the farm 
bill but by gawd it isn't as important to keep corporate farmers funded 
as it is to keep young children, through no fault of their own, with 
enough calories to support their mental faculties enough to make it 
through school on an even playing field you greedy b.
                                 ______
                                 
                       Comment of Linda Thompson
    Date Submitted: Saturday, May 19, 2012, 10:41 a.m.
    City, State: Montrose, CO
    Occupation: Office Manager
    Comment: Organic food is the future of the world, so we can avoid 
pesticides and herbicides, as well as GMOs in our food supply and in 
our environment. Also, organic farming sequesters more carbon than non-
organic farming, and can help us turn around global warming.
                                 ______
                                 
                       Comment of Scott Thompson
    Date Submitted: Sunday, May 20, 2012, 5:41 p.m.
    City, State: Fairfield, CT
    Occupation: Engineer
    Comment: I support:

  <bullet> local farms and legislation that will make it easier for 
        local and small farmers to be competitive;

  <bullet> protection of public health by requiring labeling of GMOs;

  <bullet> agricultural land and farmland conservation.
                                 ______
                                 
                        Comment of Tara Thompson
    Date Submitted: Thursday, May 10, 2012, 7:11 a.m.
    City, State: Oviedo, FL
    Occupation: Claims Adjuster
    Comment: We need to continue to have Second Harvest Food Bank as a 
source to help feed the homeless and hungry people we have in our area. 
Please do not stop these types of programs. I feel we will begin to see 
situations worsen and family members begin to perish because of lack of 
food. Here in America? I pray God will touch the hearts of those that 
can help the poor and needy. Proverbs 21:13 says ``Whoso stopped his 
ears at the cry of the poor, he also shall cry himself, but shall not 
be heard''. Thanks so much.
                                 ______
                                 
                     Comment of Myra Thompson-Bull
    Date Submitted: Friday, May 18, 2012, 5:22 p.m.
    City, State: Alpine, CA
    Occupation: Acupuncturist/Health Care Provider
    Comment: We need an organic, safe food, farm bill. Do you want to 
feed your family toxic food? This is a no brainer. Why would anyone 
want to feed their precious family genetically modified (as in not 
real) toxic food? There is only one reason I can imagine, Corporate 
Greed and manipulation of the food supply for huge profits. Please 
don't let that insanity happen.
    Thank you very much,

Myra Thompson-Bull.
                                 ______
                                 
                       Comment of Michelle Thoms
    Date Submitted: Saturday, May 19, 2012, 9:15 a.m.
    City, State: Frisco, TX
    Occupation: Recruiter
    Comment: Please keep the best interest of our farmers in mind. We 
need good farmers in order to have good quality food to eat that will 
not cause us problems later on in life.
    Regards,

Michelle and family.
                                 ______
                                 
                        Comment of D. Iris Thor
    Date Submitted: Friday, May 18, 2012, 7:21 a.m.
    City, State: Vestal, NY
    Occupation: Retired
    Comment: America needs healthy organically raised food sources and 
sustainable programs that protect our environment and our agricultural 
workers. It's time for a better farm bill.
                                 ______
                                 
                        Comment of Tess Thorman
    Date Submitted: Tuesday, May 15, 2012, 10:34 a.m.
    City, State: Philadelphia, PA
    Occupation: AmeriCorps Member
    Comment: Please focus on writing a farm bill that creates economic 
opportunity and improves access to healthy, affordable food for all 
Americans! I am a nutrition educator in a low-income neighborhood, and 
I use SNAP benefits, myself. I know where to look for fresh, healthy, 
sustainably grown food for myself, but most people in my neighborhood 
do not--or there are other things stopping them from accessing healthy 
food. Please make it easier for us. Everyone deserves to be healthy.
    In the 2012 Farm Bill, include the Community Food Projects Program, 
Farmers Market and Local Food Promotion Program, and Hunger-Free 
Community Incentive Grants.
                                 ______
                                 
                      Comment of Melanie Thornburg
    Date Submitted: Friday, May 18, 2012, 2:41 p.m.
    City, State: Marion, KY
    Occupation: Housewife
    Comment: Mr. Whitfield this may be your only chance to take a stand 
on what the people demand and need. Morgellons IS found in all 
syndromes of unknown origin, despite the CDC latest report of refuting 
the DNA of what it is or where it comes from. They lie. We know that 
the prion protein spirochetes carry cannot be killed by any means known 
to man. And we also know they know they have been giving it to us in 
vaccines for over 30 years. The criminals who have ruled the MSMedical 
in this country have been killing us on purpose, just as surely as they 
allowed the Anthrax vaccine for our military without testing in the 
spirochetes proteins that is massively infecting the population.

            http://www.youtube.com/
        watch?feature=player_embedded&v=yOno_2m_8LY

    Yet we already know it is causing All Syndromes of unknown origin 
including the 1 in 29 kids who now suffer No treatment to cure them of 
their Autism that is caused by those same seronegative infections 
hidden in prion protein. Adding even One more GMO or vaccine to this 
mix may be mans last. We demand relief of GMO and a farm bill that 
sustains man. Not kills us faster. By letting them use waste on food 
crops that will and have washed out to sea they are not only destroying 
us they are destroying the world. Because our bee's are the mirror to 
mans existence and they are dying too in colony collapse disorder for 
which Monsanto has taken over that research too. This is the most 
critical time in the history of man for U.S. to get it right. Because 
when the 1 in 29 Autism kids added to all the other syndromes gets to 
be 1 in every 1--they will have won WWIII and we helped them destroy 
man.
                                 ______
                                 
                        Comment of Sara Thornton
    Date Submitted: Friday, May 18, 2012, 2:17 p.m.
    City, State: Eastover, SC
    Occupation: Teacher
    Comment: It is time for a real organic farm bill. Americans want to 
know what is in their food and need food labeling and help to small 
producers. Agribusiness should not get any subsidies and should not be 
in control of American farming. More and more Americans are buying 
organic and shopping in stores like Whole Foods, Earthfare and even 
Wal-Mart is now offering organic food. Monsanto has got to go. Please 
think about the future welfare of Americans, the planet and our food 
chain. Bees are dying, Roundup Ready crops are creating super bugs and 
we need to go back to local, sustainable and organic agriculture from 
heritage and non GMO seeds.
                                 ______
                                 
                       Comment of Deborah Thrash
    Date Submitted: Friday, May 18, 2012, 5:53 p.m.
    City, State: Fredericksburg, VA
    Occupation: Retired/Disabled
    Comment: In the real world some people learn how to abuse the 
programs that offer the most help to those in need. Please do not make 
cuts to SNAP, TEFAP or CSFP. These programs are a vital link for 
millions of Americans in securing that almighty commodity Food.
    If you must cut something, then look to cut the loopholes and 
ambiguous laws that allow a few ne're do wells to profit.
    These programs work, can they be made better, absolutely, but in 
making them better must we sacrifice the many for the evils of the few 
or the one?
    There's a very simple, cost effective way to stop the fraud/abuse 
especially of SNAP.
                                 ______
                                 
                        Comment of Lynn Thurston
    Date Submitted: Friday, May 18, 2012, 12:58 p.m.
    City, State: Phillips, ME
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: We need a food policy--not just an ag policy. We need the 
gov't to support small producers and legislate regulations according to 
scale of operations. Don't sell out our food production and 
distribution to the big ag and chemical companies.
                                 ______
                                 
                        Comment of Clark Tibbits
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Columbiaville, MI
    Occupation: Retired Farmer and Sustainable Agriculture Consultant
    Comment: Small scale organic farming and gardening is increasing in 
the 10th district of Michigan, but we need fair ground rules for the 
sake of those producers and consumers. Please pass the Organic Farming 
Bill.
                                 ______
                                 
                       Comment of Jackie Tidwell
    Date Submitted: Friday, May 18, 2012, 2:47 p.m.
    City, State: Lafayette, LA
    Occupation: Administrative Assistant
    Comment: I currently work to promote water quality and 
sustainability is key to that mission. As a graduate in the college of 
environmental sciences, the information I received was clear--organic 
farming will keep our soil and water in usable form for future 
generations. There are places where water is unsafe to drink, our gulf 
is depleted of oxygen. We need a bill that protects the overall health 
of our resources and the people who rely on them for food, water, and 
shelter.
                                 ______
                                 
                         Comment of Sarah Tiers
    Date Submitted: Saturday, May 19, 2012, 12:08 a.m.
    City, State: Crestone, CO
    Occupation: Nanny/Healer
    Comment: Farm Policy needs to be free from GMO's and free to grow 
organic produce, the best for our health. In no way should anyone be 
able to coerce farmers to accept GMO's. They are free agents who need 
to be free to do what they feel best in their agribusiness.
                                 ______
                                 
                         Comment of David Tiger
    Date Submitted: Friday, May 18, 2012, 6:23 p.m.
    City, State: Austin, TX
    Occupation: Business Owner
    Comment: I wish to have the freedom to chose what I eat and drink 
pure organics is I all want. I want labeling of GMO food so that I can 
chose not to eat it. Thanks.
                                 ______
                                 
                Joint Comment of Karla and Brent Tildahl
    Date Submitted: Friday, May 18, 2012, 1:40 p.m.
    City, State: Fontana, WI
    Occupation: Retired Health Care Professional
    Comment: We try to hard to eat healthy to keep our old retired 
bodies going and we feel strongly that the farm bill is unfair to local 
farmers and organic producers. Please consider these producers when you 
finalize the bill. Isn't it time to stop subsidizing big corporate 
farmers.
                                 ______
                                 
                        Comment of Terry Tillman
    Date Submitted: Friday, May 18, 2012, 10:26 p.m.
    City, State: Santa Monica, CA
    Occupation: Business Consultant/Seminar Leader
    Comment: An increasing number of us want to eat Real Food, not 
factory farmed phood. Please do the right thing, not caving into the 
best funded lobby and business, and support our free choice, and those 
producers who want the same! Please listen to those who are putting 
people/humans in their decisions as a higher value than dollars.
                                 ______
                                 
                         Comment of Aaron Timbo
    Date Submitted: Friday, May 11, 2012, 4:26 p.m.
    City, State: Minneapolis, MN
    Occupation: IT Professional
    Comment: I believe the farm bill should lay out a framework for 
conservation while ensuring food security for future generations. To 
this end, the main goal should be supporting small-scale, organic food 
producers rather than subsidizing large-scale, industrial, commodity 
producers. No
                                 ______
                                 
                         Comment of Heidi Timer
    Date Submitted: Saturday, May 19, 2012, 7:35 p.m.
    City, State: Austin, TX
    Occupation: Massage Therapist
    Comment: I would like to see a Farm bill that supports small 
organic farmers and reductions in use of GMO crops for consumption. I 
feel there has not been enough research into the digestibility of GMO 
foods. It is also unfair that Monsanto can sue farmers whose crops have 
been tainted from cross pollination with Monsanto's genetically 
modified crops. I really feel it is unethical to patent seeds and it 
has put some farmers into horrible financial situations that were not 
their own fault.
    My hope is that a Farm bill would help small farmers and support 
agriculture that produces healthier, cleaner foods being produced in a 
way that is more sustainable. Thank you for the opportunity to express 
my concerns.

Heidi Timer.
                                 ______
                                 
                         Comment of Samuel Ting
    Date Submitted: Saturday, May 19, 2012, 9:21 a.m.
    City, State: Brooklyn, NY
    Occupation: Student
    Comment: Healthy, organic and unaltered, locally grown food are 
necessary for a healthy society. It will also help to reduce the huge 
healthcare burden on the government or its taxpayers. Besides, 
politicians need to start doing their actual jobs and help All the 
citizens of this country.
                                 ______
                                 
                       Comment of Nicole Tinkham
    Date Submitted: Friday, May 18, 2012, 12:52 p.m.
    City, State: Los Angeles, CA
    Occupation: Law
    Comment: I would like a bill that supports smaller farms growing 
fruits and vegetables, not corn or soy. This support could come in 
several ways: (1) complete removal or 50% reduction in subsidies to 
corn and soy production, or (2) equal distribution of farm subsidies to 
all crops so that the price of non-corn and soy fruits and vegetables 
decrease and production of them increases. I would also like to see 
additional support for small farms raising cattle, pigs, chickens, and 
goats that use non-corn and soy feeds and promote natural food and 
grazing options for the animals.
                                 ______
                                 
                       Comment of Rebecca Tippens
    Date Submitted: Friday, May 18, 2012, 11:52 a.m.
    City, State: Colerain, MA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I have a garden that serves my cultural center, live in a 
rural farm time where folks have been subsistence farmers for centuries 
And I am a member of various farm and garden related groups. It is 
essential that support be given to real food, organic, sustainably 
grown, and that food be helped into the schools and neighborhoods, that 
forces (GMO's that would harm those endeavors Not be given support. 
Wake up. Do what is right to save the world . . . quality is important!
                                 ______
                                 
                        Comment of Helen Tirben
    Date Submitted: Friday, May 18, 2012, 1:27 p.m.
    City, State: Fairfield, CA
    Occupation: Self-Employed
    Comment: I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    The Senate Ag Committee has voted to get rid of wasteful subsidy 
payments. It has proposed to replace it with a new subsidized insurance 
program that leading sustainable agriculture advocates are calling rife 
with opportunities for fraud and abuse. Please do not allow this! As it 
stands now, I produce my own vegetables because I cannot trust what is 
sold in the stores!
                                 ______
                                 
                          Comment of Ann Titus
    Date Submitted: Thursday, April 19, 2012, 11:24 a.m.
    City, State: Pittsburgh, PA
    Occupation: Purchasing Manager
    Comment: Please strengthen and support anti-hunger programs such as 
SNAP, TEFAP, and CSFP. The disparity between rich and poor has never 
been greater in this country. It is imperative that government does 
it's part in helping feed its most vulnerable citizens.
                                 ______
                                 
                        Comment of Kathryn Titus
    Date Submitted: Saturday, May 19, 2012, 6:35 p.m.
    City, State: Athens, GA
    Occupation: Retired
    Comment: Those who should be controlling our food supply should be 
small farmers, not huge conglomerations. Let's get this nation back to 
some form of agricultural sanity. Cruelty to livestock, poisoning of 
seeds and crops is wrong. Fix It!
                                 ______
                                 
                        Comment of Janet Tobias
    Date Submitted: Thursday, May 10, 2012, 8:57 a.m.
    City, State: Tucson, AZ
    Occupation: Registered Nurse
    Comment: Hello, As a nurse caring for kidney failure clients, I see 
firsthand the damage wrong foods do and the damage no food does. To 
reiterate the state of my nation's economy would be wasting precious 
time. To rehash the cause of this economy, well, you all know why. Now 
you will diminish a vital program to ``balance a budget'' while 
continuing to pour hundreds of thousands of dollars into Illegal Alien 
support programs. I live in Arizona. I support my food bank because I 
see how much it helps. Will you support the food banks, help them help 
others? I elected people I hoped would support America more than ``any 
other country!''
                                 ______
                                 
                         Comment of John Tobias
    Date Submitted: Friday, May 18, 2012, 12:55 p.m.
    City, State: DeKalb, IL
    Occupation: Retired
    Comment: Please protect our food supply and help expand Organic 
Food production and small farms. Mega Farms are destroying our soil and 
processed foods are ruining our health. Greedy large corporations only 
care about money. Our health should be the most important concern, not 
maximum profits. Thank You.
                                 ______
                                 
                        Comment of Cynthia Tobin
    Date Submitted: Saturday, May 19, 2012, 12:18 a.m.
    City, State: Burbank, CA
    Occupation: Office Manager
    Comment: I am not in favor of huge agribusiness wiping out our 
local farmers especially the organic farmers. I do not want GMO food 
grown, animals treated cruelly, or poisons spread.
                                 ______
                                 
                         Comment of Alice Todd
    Date Submitted: Friday, May 18, 2012, 1:29 p.m.
    City, State: Carlsbad, CA
    Occupation: Retired
    Comment: Please support organic and sustainable farming. We must 
put the health of the American people First, before the interests of 
lobbyists and the greed of corporate agribusiness. Put the people 
first! You are there to represent our best interests! The costs in 
terms if health, suffering and healthcare are too big to ignore. 
Support healthy organic and sustainable farming now!
                                 ______
                                 
                       Comment of Jasmine Tokuda
    Date Submitted: Friday, May 18, 2012, 4:26 p.m.
    City, State: Alameda, CA
    Occupation: Business Owner
    Comment: Please don't cut meat and poultry inspectors. Please 
encourage the use of organic techniques and heritage seeds, No GMO's. 
Please end farm subsidies to large mono-crop growers.
                                 ______
                                 
                        Comment of Diane Tolley
    Date Submitted: Sunday, May 20, 2012, 10:50 p.m.
    City, State: Brookside, NJ
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. My son and his fiance 
are young farmers and I'd like to share my support for programs that 
help the next generation of growers build strong farm businesses. As 
it's estimated that 125,000 farmers will retire in the next 5 years, 
it's absolutely critical that farm bill programs help citizens get 
started in this challenging field. They have worked endless hours--up 
to 14 a day for someone else. They can not afford to buy any land, 
especially in NJ because of the prices and taxes. They have had to give 
up farming and babysit and paint houses to make ends meet. You need to 
do something to help these young people who are willing to work long 
hard hours to supply us with dependable, local, all natural foods. I 
ask that the Committee endorse all of the provisions of the Beginning 
Farmer and Rancher Opportunity Act (H.R. 3236). These and other 
provisions within the Beginning Farmer and Rancher Opportunity Act will 
help new growers succeed and I urge you to include them in the next 
farm bill.
            Sincerely,

Diane Tolley.
                                 ______
                                 
                         Comment of Julie Toman
    Date Submitted: Thursday, May 17, 2012, 10:59 a.m.
    City, State: Waukesha, WI
    Occupation: Teacher
    Comment: My preference is for tax dollars to be used in a way that 
promotes health. Healthy workforce is more employable and productive 
and less expensive for business and society. Subsidies to food 
producers would be better spent on making fruits and vegetables 
available at a lower cost, for schools and families. Grains currently 
subsidized often go to make food high in sugar and highly processed. 
This is a large factor in obesity/diabetes/heart disease issues 
plaguing our country. Help feed us well. Don't use my tax dollars to 
provide money for grain farmers/conglomerates that are providing an 
abundance of foods of which we may actually need less.
                                 ______
                                 
                     Comment of Michael Tomczyszyn
    Date Submitted: Wednesday, May 09, 2012, 3:41 p.m.
    City, State: San Francisco, CA
    Occupation: Teacher
    Comment: It is shameful in a country of such affluence to speak of 
allowing anyone to go hungry, and the criminality is amplified when we 
deliberately choose to fail to protect the most vulnerable, the ``least 
among us,'' including our elderly. If we must be harder-nosed about it, 
let us think then in the big picture--the economic instability that is 
the inevitable outcome of poverty as well as the lost social capital in 
a society that rewards it most greedy while sacrificing its most 
helpless, which undermines trust and security and a common national 
identity.
                                 ______
                                 
                        Comment of Barbara Tomei
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: New York, NY
    Occupation: Sales
    Comment: Stop subsidizing the production of food that makes us and 
our planet sick. When will our representatives stand up to the 
corporations? What year?
                                 ______
                                 
                         Comment of David Tonn
    Date Submitted: Saturday, May 19, 2012, 8:47 p.m.
    City, State: Tualatin, OR
    Comment: We need to focus on sustainable farming methods. These 
include strong organic standards, meaningful and productive trade 
standards (the world is not a balanced market and shouldn't be thought 
of as one--tariffs are the way to manage this, not subsidies of 
particular products that are poorly defined and often 
counterproductive), and an interest and understanding of the 
consequences that will result from the farming procedures that we set 
up. Centralized large farms result general destitution and poor quality 
of food, inherently. Organic standards promote care for food quality 
and economic and environmental stability within the farming base of the 
United States.
                                 ______
                                 
                       Comment of Patricia Toolan
    Date Submitted: Friday, May 18, 2012, 10:59 p.m.
    City, State: Severna Park, MD
    Occupation: Counselor, Retired
    Comment: Please support small farmers, especially organic ones, and 
try to stop the harassment and attempts by FDA to put organic and Amish 
farmers out of business.
    We need some nutritious food alternatives, especially local ones, 
as alternatives to the foods produced by big agricultural super 
companies, often offering only genetically engineered cancerous food 
and/or refined food that causes obesity and diabetes.
    Thank you.
                                 ______
                                 
                       Comment of Sandra Tormoen
    Date Submitted: Saturday, May 19, 2012, 6:44 a.m.
    City, State: Richmond, VA
    Occupation: Executive
    Comment: I am not a farmer but I am well of my dependence on 
American farmers. In the farm bill you are considering, please include 
measures to reduce unnecessary regulations on farmers, increase funds 
for farmer education, and protect America's farmland. In particular, 
more money needs to be spent funding SARE, Cooperative Extension 
services, and general education. In addition, The Local Farms, Food, 
and Jobs Act (H.R. 3286) should be fully funded. Please do not cut 
these programs! Thank you very much for considering my views.
                                 ______
                                 
                        Comment of Stacey Tosado
    Date Submitted: Friday, May 18, 2012, 10:52 p.m.
    City, State: Dorchester, MA
    Occupation: Registered Nurse
    Comment: A bill emphasizing the importance in preserving 
traditional organic farming is an absolute necessity in protecting the 
health of consumers. The way that livestock are handled place consumers 
at great risk in contracting disease, and is simply and utterly 
despicable. The fact that the chickens we ingest and given hormones 
that speed up the growth of their bodies without any effect on their 
organ systems leaves their bodies in a state where they are less 
capable to metabolize and excrete properly to be deemed healthy 
organisms. These animals are kept in a den with no sunlight or access 
to open air were they are residing with their own waste products. This 
is not something that would seem appetizing to any individual and I do 
not think anyone would disagree that being aware of this reality is 
disturbing. This is only one of the many reasons why protecting and 
implementing organic farming, allowing these animals to graze in 
appropriate settings and circumstance necessary for their species to 
thrive is essential. This will enable better health outcomes, prevent 
the outbreaks of E. coli and other pathogenic organisms to invade our 
bodies that we cherish. We have a right to be granted with this 
opportunity.
                                 ______
                                 
                      Comment of Barbara Toshalis
    Date Submitted: Saturday, May 19, 2012, 8:06 a.m.
    City, State: Middleville, MI
    Occupation: Organic Gardener
    Comment: We need to support conservation and sustainable farming 
practices as well as support for small farms, rather than continuing 
huge subsidies for corporate farming.
                                 ______
                                 
                       Comment of Kathleen Tovey
    Date Submitted: Saturday, May 19, 2012, 8:20 a.m.
    City, State: Peotone, IL
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: I am a very small producer. I use No chemicals. Even the 
farmers have lost touch with the land. They are in too much of a hurry 
because they have thousands of acres to run their gigantic machinery 
over. It may take more time, but we need to get back to the small 
farms, even if big Ag just lets us little guys do our thing America 
would greatly benefit. If people want raw milk, organic vegetables, 
etc. . . . let them have it. Stop making us criminals and America can 
be great again!
                                 ______
                                 
                      Comment of Marjorie Townsend
    Date Submitted: Saturday, May 19, 2012, 5:59 p.m.
    City, State: Windsor, OH
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 151-300 acres
    Comment: This is not the time for austerity. The U.S. must support 
conservation and small and beginning and disadvantaged farmers. 
Insurance is not the answer--it is only lining the pockets of insurance 
companies. I only had to buy insurance once, and I will never buy it 
again.
                                 ______
                                 
                       Comment of Scott Townsend
    Date Submitted: Friday, May 18, 2012, 1:46 p.m.
    City, State: Derry, NH
    Occupation: Electrical Engineer
    Comment: My family and I believe that organic farming is the best 
path to a healthy future. We buy eggs, chicken, and pork from a local 
organic farm, and we buy local organic produce where we can. We urge 
you Not to cut funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture. These 
are important programs for the future health of American youth.
                                 ______
                                 
                         Comment of Alaric Toy
    Date Submitted: Friday, May 18, 2012, 6:21 p.m.
    City, State: Pleasant Hill, CA
    Occupation: Acupuncturist
    Comment: I want All my food labeled according: GMO, non-GMO, 
hormone added, no-hormones added, etc. I have the right know everything 
that was added or altered to the food I buy. We need to Stop Federal 
subsidies of corn and high fructose corn syrup. Scientific study after 
study keeps showing that one of the main culprits in our declining 
health and quality of life is due to our lack of good, clean, 
nutritionally dense food. The farm bill needs to promote the health and 
wellness of the nation and our family farms. Our subsidies should also 
not impact international relief efforts where local farmers cannot 
compete with international foodstuffs. It doesn't make sense and isn't 
fair to the people or the world.
                                 ______
                                 
                        Comment of Carmen Tracey
    Date Submitted: Thursday, May 17, 2012, 9:39 a.m.
    City, State: Wauwatosa, WI
    Occupation: Holistic Health Care
    Comment: In the 2012 Farm Bill, please make sure that we protect 
the Conservation Stewardship Program from unfair funding cuts, and 
improve it by ranking applications solely on their conservation 
benefits. Farmers count on CSP and other conservation programs to 
conserve soil for future generations, keep water and air clean, and 
create habitat for wildlife--all while farming profitably. I would also 
like to see us fund the Organic Agriculture Research and Extension 
Initiative at $30 million per year in mandatory funding. Investment in 
agricultural research is vital to continued productivity and innovation 
in growing and diverse sectors of American agriculture, such as organic 
agriculture. Thank you for taking the time to listen to my input.
            Sincerely,

Carmen Tracey.
                                 ______
                                 
                         Comment of Ellen Tracy
    Date Submitted: Friday, May 18, 2012, 7:30 p.m.
    City, State: Ellsworth, ME
    Occupation: Administrator
    Comment: Healthy, untainted food does not originate from mass 
produced bid ag, using chemicals that are bad for the land, bad for 
animals, and bad for humans.
                                 ______
                                 
                       Comment of Susan Trafford
    Date Submitted: Thursday, May 17, 2012, 11:34 a.m.
    City, State: Jeannette, PA
    Occupation: Educational Consultant
    Comment: How oblivious are those who want to cut funds. Now, more 
than ever, food banks and such are saviors to thousands upon thousands 
of people here in our small corner of the country. Poor and jobless and 
now starving?
                                 ______
                                 
                      Comment of Sharon Tragesser
    Date Submitted: Friday, May 18, 2012, 11:26 a.m.
    City, State: N. Huntingdon, PA
    Occupation: Human Resource Director
    Comment: I would like to point out that feeding our neighbors is a 
public-private partnership, and encourage you to do your part I want 
and we need our government to do its part.
    Cutting anti-hunger programs will increase hunger in America, as 
well as the associated health care, educational, and economic costs of 
food insecurity and poor nutrition.
    Please remember the families who are struggling in our community, 
and I urge you to protect and strengthen important anti-hunger programs 
like TEFAP, SNAP, and CSFP in the 2012 Farm Bill reauthorization.
    Our country needs these programs now more than ever!
                                 ______
                                 
                        Comment of Rabia Tredeau
    Date Submitted: Saturday, May 19, 2012, 2:08 p.m.
    City, State: Prescott, AZ
    Occupation: Teacher
    Comment: Please, please do the right thing for those of us in the 
middle. Farms are important; we need more farmers and more good food 
for children, adults, the disabled and the elderly.
                                 ______
                                 
                        Comment of Gina Trenkamp
    Date Submitted: Friday, May 18, 2012, 2:04 p.m.
    City, State: Maple Valley, WA
    Occupation: IT
    Comment: Reviewing the Farm Bill:
    It is my understanding that ``While Congress is looking to get rid 
of direct payments to commodity farmers, the subsidized insurance 
program it proposes to replace it with will allow giant commodity 
farmers and insurance companies to walk away with billions in taxpayer 
dollars while putting the land, soil and environment at greater risk.''
    Get Corporations Out Of Our Food!
    The very nature of a corporation is to pay back monies to their 
stock holders . . . why should we risk our future with corporations?
    If the statement above is true, then you need to be our public 
servant and protect our future, our food and our families. Get 
Corporations Out Of Congress and Out Of America!
    Step Up ladies and gentlemen! Our Country was founded by an 
agronomy society. Why would we ever Allow a corporation to Own our 
food?
    America is getting tired of Corp Greed!
                                 ______
                                 
                       Comment of Patricia Trice
    Date Submitted: Friday, May 18, 2012, 3:30 p.m.
    City, State: Fresno, TX
    Comment: As a consumer of produce and other farm products, and one 
who values a healthy lifestyle that is linked in large part to what we 
eat, I ask that you please do all that is humanly possible in and out 
of Congress to promote organic farming in the United States of America/
United States and pass bills that favor organic farming and oppose 
bills that promote farming which alters the genetics of the seed and 
uses dangerous chemical pesticides.
                                 ______
                                 
                        Comment of Daniel Trick
    Date Submitted: Saturday, May 19, 2012, 10:41 p.m.
    City, State: Erlanger, KY
    Occupation: Logistical Support
    Comment: I imagine it would be difficult to think of another 
developed country with the same level of health problems that the U.S. 
has. This is due, at least in part, to our farm policy.
    Subsidies for massive monocrop farms have led to an abundance of 
unhealthy filler ingredients that find their way into nearly everything 
we eat. One trip to a typical supermarket can verify the unnecessary 
presence of corn based sweeteners in almost all of the products on the 
shelf. For example, nearly every brand of sliced bread contains corn 
syrup. Is there a legitimate reason for this? The introduction of 
sweeteners into even our supposedly savory foods has shifted the 
American palate to expect these filler ingredients in our foods, 
creating a dangerous cycle of unhealthy food choices. I would argue 
that this has something to do with the rate of diabetes in our country.
    As our representatives, I ask you to take the responsibility of 
creating a better farm bill seriously. I am no expert on matters of 
agriculture, but I sincerely hope that members of the house will 
consider the research of doctors, dieticians, and the American Diabetes 
Association over the interests of agribusinesses that are not concerned 
with the health of Americans. Our country is quickly mounting a medical 
bill that we can no longer afford to pay and it is time for a change in 
the agricultural policies that influence our diets.Thank you for your 
time.
            Sincerely,

Daniel Trick.
                                 ______
                                 
                        Comment of Kristy Trione
    Date Submitted: Friday, May 18, 2012, 2:15 p.m.
    City, State: Redmond, WA
    Occupation: Nonprofit Organizational Consultant
    Comment: A farm bill should recognize that soil health is our 
health. Growing food on clean, organic, healthy soil is key to our 
health and economic vitality. Supporting small family farms, 
encouraging organic, diverse, and permaculture principles should be at 
the core of any policy on farming and agriculture for our nation.
                                 ______
                                 
                         Comment of John Tripi
    Date Submitted: Friday, May 18, 2012, 1:10 p.m.
    City, State: Howell, MI
    Occupation: Retired Engineer
    Comment: I am requesting your support to maintain a healthy food 
supply, protect organic product production and reduce the influence of 
large agricultural corporations.
                                 ______
                                 
                       Comment of Melissa Troiano
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: Hamden, CT
    Occupation: Financial Counselor for Yale Fertility Center
    Comment: How about we knock out the big factory farming funding, 
instead of the important work that is going on with the local green 
movement of food sourcing? I want to know when there are GMO's in my 
food. These corporations are happy to drive down the cost of production 
at the expense of mine and everyone else's health. Please put a stop to 
that.
            Thank you,

Melissa.
                                 ______
                                 
                       Comment of Marcia Trotchie
    Date Submitted: Friday, May 18, 2012, 2:40 p.m.
    City, State: Port Washington, WI
    Producer/Non-producer: Producer
    Type: Fruits, Nuts, Vegetables, Other
    Size: Less than 50 acres
    Comment: As a small scale farmer, it is extremely difficult 
competing against the big farmers that keep buying up all of the land 
because they can afford it and can outbid any of the small farmers. 
Also, they can produce so much more at a lower price and it is an 
unfair advantage for the smaller farmer to have a chance. We do not 
belong to the Earth . . . we are the caretakers of the Earth and any of 
the decisions we make, we should look at how it will impact the next 7 
generations . . . this is the only unselfish way to live in balance 
with the land. We must do this in order to heal the land, the water and 
the people.
                                 ______
                                 
                        Comment of Connor Trott
    Date Submitted: Sunday, May 20, 2012, 10:36 p.m.
    City, State: Sylva, NC
    Occupation: Student
    Comment: Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a young farmer 
and I'd like to share my support for programs that help the next 
generation of growers build strong farm businesses. As it's estimated 
that 125,000 farmers will retire in the next 5 years, it's absolutely 
critical that farm bill programs help citizens get started in this 
challenging field. I depend heavily on locally produced agriculture 
here in Western North Carolina. It is a choice I actively make as easy 
as it is to walk into Walmart and buy veggies from Chile and chicken 
eggs from Indiana. Many of these small farms are first generation 
farmers and people my age. Young adults who made the choice to grow 
foods for their community. Please help make their job easier and not 
harder. I ask that the Committee endorse all of the provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Connor Trott, BS Horticulture,
Auburn University 2007.
                                 ______
                                 
                    Comment of David Wesley Trotter
    Date Submitted: Friday, May 18, 2012, 5:03 p.m.
    City, State: Seattle, WA
    Occupation: Writer, Artist, Activist Retailer/Wholesaler
    Comment: It is absolutely imperative that the health and well-being 
of all citizens and sojourners in the USA must come before all else, 
especially before corporate profits and controls. Our food must be 
healthy, and that requires Healthy and Fair farming practices that put 
natural and organic foods, livestock and land first.
    It is Congress's absolute responsibility to protect the well-being 
of all the citizens who elected them, not just the ones who line their 
pockets and grease their personal; wheels.
    We must have:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Full funding for conservation programs, such as the 
        Conservation Stewardship Program,

  <bullet> Enrollment in any new insurance subsidies being tied 
        directly to compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintenance opf the EQIP Organic Initiative.
            Sincerely,

David W. Trotter,
Washing State,
7th Congressional District.
                                 ______
                                 
                      Comment of Kathleen Trotter
    Date Submitted: Friday, May 18, 2012, 12:27 p.m.
    City, State: Lowell, AR
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 151-300 acres
    Comment: Even as owners of farmland that produces field crops, we 
acknowledge that corn and soybeans don't need subsidies. And multi-
national corporations don't need subsidies. But small farmers creating 
and using sustainable methods to produce healthy food for our neighbors 
Do Need Subsidies. Update the farm bill to 21st century needs and 
potential!
                                 ______
                                 
                     Comment of Thomas Trotter, Jr.
    Date Submitted: Friday, May 18, 2012, 1:19 p.m.
    City, State: San Francisco, CA
    Producer/Non-producer: Producer
    Type: Dairy, Dry Beans & Peas, Field Crops, Poultry/poultry 
products, Vegetables
    Size: Less than 50 acres
    Comment: For the last 2 years I have farmed small-scale, diverse 
operations. I have seen what neighboring conventional, industrial-scale 
growers have done to the quality of soil, air, water and the lives of 
their workers, and I have worked to reverse those practices in my own 
operation. As you work on the farm bill, please keep in place funding 
for research into organic, sustainable practices and maintain (if not 
increase) funding for EQIP and Beginning Farmer/Rancher programs--both 
of which are essential to helping young, small-scale growers like 
myself improve our systems and feed our communities in a healthy way. 
And as you assess the topic of subsidies, please consider the 
importance of attaching requirements around conservation of soil, air, 
and wildlands to these funds. They provide important motivations to 
prompt even the largest monocroppers to incorporate a modicum of 
sustainability into their practice.
            Thank you,

Thomas Trotter, Jr.
                                 ______
                                 
                       Comment of Molly Trueblood
    Date Submitted: Friday, April 13, 2012, 1:23 p.m.
    City, State: Indianapolis, IN
    Occupation: Market Manager
    Comment: Thank you for accepting comments on this year's farm bill. 
I am the market manager for the Indy Winter Farmers Market in 
Indianapolis. In an urban area, we are one of the few organizations 
providing fresh, local, clean food to Indianapolis residents. We bring 
in small farmers to downtown and help bring more fruits, vegetables, 
and produce into the diets of our community. We continue to find it 
difficult to meet the needs of our community, despite the improvement 
of the economy. Our market has had the goal of accepting food stamps 
for the past 3 years, and we were finally able to design and implement 
a program this season. We have seen a huge return and increased 
interest in using food stamps at our market. This is beneficial not 
only to our community, but also to our farmers. Fresh, nutritious food 
is now available to folks in our community who wouldn't normally be 
able to shop at a farmers market. We need a strong farm bill to make 
sure that we can put food on the table for those that are still 
struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These programs are a 
lifeline to the people struggling with hunger in Marion County, and I 
urge you make them a priority in the next farm bill. Thank you for your 
consideration.
            Sincerely,

Molly Trueblood.
                                 ______
                                 
                       Comment of Thomas Truempy
    Date Submitted: Friday, May 18, 2012, 2:29 p.m.
    City, State: Phoenix, AZ
    Occupation: Engineer
    Comment: The most important thing we consider in terms of 
healthcare and future well being is that of farming and sustainability. 
Good quality food is critical to good health. We are just now seeing 
the affects of factory farming on health. Vegetables with inferior 
nutritional value from genetic modification. Beef with poor nutritional 
value from cows being forced to eat contrary to their nature (grains 
and corn). Feedlot operations spoil the environment with manure 
overflows. These practices are not sustainable. I would like to see 
subsidies go to furthering organic, sustainable farming and no 
subsidies going to growing more corn. It is increasingly clear that 
companies like Monsanto are not concerned with the public's well being. 
They are only concerned with consolidating power.
                                 ______
                                 
                        Comment of Darla Truitt
    Date Submitted: Friday, May 18, 2012, 4:53 p.m.
    City, State: Aloha, OR
    Occupation: Programmer
    Comment: The money we put into the food supply matters. With 
childhood obesity on the rise and the huge medical costs resulting from 
diseases associated with obesity, we cannot ignore the impact food 
subsidies have on our health. Do subsidize organic and sustainable 
farming. Do not subsidize corn and big ag.
                                 ______
                                 
                         Comment of Leon Trumpp
    Date Submitted: Saturday, May 19, 2012, 9:55 a.m.
    City, State: Sedalia, MO
    Occupation: Water Softener Dealer--Kinetico
    Comment: End subsidies to the farmers (especially tobacco) and 
tighten controls on big producers to ensure animals are treated 
humanely. Allow hemp to be grown so that farmers can compete with 
foreign producers.
                                 ______
                                 
                         Comment of Joel Trupin
    Date Submitted: Friday, April 27, 2012, 10:41 a.m.
    City, State: Marshfield, VT
    Occupation: Retired
    Comment: Strengthen and protect programs like TEFAP and SNAP in the 
farm bill--which funds programs like TEFAP and SNAP that help 
vulnerable children, seniors, and low-income families.
                                 ______
                                 
                     Comment of Camille Tschaggeny
    Date Submitted: Friday, May 11, 2012, 10:06 p.m.
    City, State: Beaverton, OR
    Occupation: Banking
    Comment: No more big-agri subsidies, Monsanto, Dow, Bayer, ConAgri, 
ADM, they need to be removed from public funding! Our agriculture 
policies and financial support must be focused on Real Food that is 
sustainably grown and environmentally safe.
                                 ______
                                 
                          Comment of Ann Tubbs
    Date Submitted: Friday, May 18, 2012, 4:44 p.m.
    City, State: San Francisco, CA
    Occupation: Retired Healthcare Administrator
    Comment: There are hundreds of reasons why the agricultural policy 
of the U.S. should be drastically changed. Our growing obesity problem 
is one, a big one, so to speak. The disappearance of species of fruit 
and vegetables--and of family farmers--is another. The gross unfairness 
of huge subsidies to agribusiness is another. And then there is the 
horrible way farm animals are treated in many of the huge factory 
farms.
                                 ______
                                 
                     Comment of Christina Tuccillo
    Date Submitted: Thursday, May 17, 2012, 12:37 p.m.
    City, State: Berkeley, CA
    Occupation: Recruiter
    Comment: I want a farm bill that supports small and organic 
farmers, not huge corporate farms that cut corners and produce food 
that makes us sick. I want healthy food for children, at home and at 
school--no pink slime! I want to make sure we protect the environment 
for the future.
                                 ______
                                 
                       Comment of Frederick Tuck
    Date Submitted: Sunday, May 20, 2012, 10:21 p.m.
    City, State: Stanardsville, VA
    Occupation: Retired Geologist
    Comment: The Agriculture Department has been giving away tax 
dollars in subsidies to landowners for not farming certain crops, in an 
effort to `manage' production for decades. This wasteful, welfare 
practice must end. If it was intended to help preserve small family 
farms, it has failed miserably. It rewards laziness, undermines 
capitalism, and ultimately tends to contract the supply of America's 
food to a few large corporations, specializing in chemical-intensive, 
monoculture production. The market must be allowed to determine 
production via price discovery.
    Small family farmers, especially those who use sustainable, organic 
growing methods must be encouraged. Food labeling helps consumers make 
informed choices and should include information about genetically 
engineered products as well as any drugs, hormones, or other chemicals 
involved in food's production.
    Tax dollar welfare for mega-corporations must end, now. We need a 
new agriculture policy that promotes increased local production, grows 
the number of independent farms and rewards sustainable farming 
practices.
                                 ______
                                 
                       Comment of Jeffrey Tucker
    Date Submitted: Friday, May 18, 2012, 2:32 p.m.
    City, State: Miami, FL
    Occupation: Nonprofit Manager
    Comment: The farm bill needs to support the citizens and a 
sustainable, practical ag economy based on wise land use, diversity and 
family farms, the backbone of successful agriculture.
                                 ______
                                 
                        Comment of Denise Tugadi
    Date Submitted: Saturday, May 19, 2012, 8:05 a.m.
    City, State: Nashville, TN
    Occupation: Cook
    Comment: Organic farmers should be allowed to grow food liked they 
have done for centuries without restrictions and bullying from agri-
farming. It's a basic human right to be able to feed ourselves, let it 
be.
                                 ______
                                 
                       Comment of Victoria Tuggey
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Madison, AL
    Occupation: Artisan
    Comment: Start fresh. Start by throwing out all the old subsidies 
for corn and grain and offer subsidies for non-CAFO and clean food 
farmers. Promote wellness and sustainability by putting small farmers 
back in the game and to promote locavorism. Make organic certification 
affordable for the small farmers who more than abide by it's rules and 
philosophy. Subsidize vegetables. And offer those surplus veggies to 
school lunch programs. It will decrease health care costs and elevate 
the nation mentally, physically and financially. That's doing the right 
thing.
                                 ______
                                 
                         Comment of Laura Tumak
    Date Submitted: Saturday, May 19, 2012, 8:05 a.m.
    City, State: Clarinda, IA
    Occupation: Homemaker
    Comment: Family Farms are disappearing in America, while the big 
companies that monopolize food supply are getting bigger.
    Meanwhile, conventional farming has shifted from one with natural 
pest control to one where more and more pesticides are used. Farmers 
who choose not to use genetically modified corn or soy have a difficult 
time finding seeds to plant or an elevator to sell their crops to. The 
big companies specializing in seed sales, genetically modified crops 
and pesticides are getting bigger and bigger.
    Farm subsidies should be for family farms, and to help those who 
choose to farm with environmentally sustainable methods.
                                 ______
                                 
                       Comment of Susan Turnbull
    Date Submitted: Friday, May 18, 2012, 12:09 p.m.
    City, State: Frederick, MD
    Occupation: Retired
    Comment: Please stand up to the big agro-businesses to help us save 
family farmers and our own health from dangerous (and tasteless) 
practices. Let us have our old-fashioned produce again!
                                 ______
                                 
                      Comment of Christiane Turner
    Date Submitted: Friday, May 18, 2012, 11:17 a.m.
    City, State: Ketchum, ID
    Occupation: Board Member of Idaho's Bounty Co-op in Ketchum, Idaho
    Comment: As the each of you considers the upcoming 2012 Food and 
Farm Bill, I insist that you carefully and copiously:

  <bullet> Consider the job-producing, environmentally sound, healthful 
        and the long-term community strengthening benefits of 
        financially supporting this rapidly growing local, organic and 
        sustainable farming movement.

  <bullet> Reconsider and prevent the irreversible and long-term 
        damaging effects that have occurred and continue to transpire 
        from decades of financial supporting toxic industrial farming 
        linked to politically-driven commodity programs.

  <bullet> Consider the now well-documented and widespread economic, 
        health and environmental damage caused by subsidizing these 
        large, industrial, toxic farms.

  <bullet> Consider that each of your influence today will be 
        historically documented and recorded so that our children and 
        grandchildren will have the ability to look back at these 
        critical times and to judge knowing that each of you had the 
        opportunity to intelligently change the course of history and 
        to redirect financial support in favor of truthful, healthful, 
        fair and sustainable farming.

    I urge you to consider all the above in a personal and ethical 
manner and not a political one.
            Thank you and sincerely,

Christiane Turner.
                                 ______
                                 
                         Comment of Joan Turner
    Date Submitted: Friday, May 18, 2012, 11:54 a.m.
    City, State: Strasburg, CO
    Occupation: Retired Childcare
    Comment: Please find a way to stop subsidizing the farm crops that 
are making us sick and to help out the (small, organic) farmer raising 
fruits and vegetables.
                                 ______
                                 
                        Comment of Warren Turner
    Date Submitted: Friday, May 18, 2012, 1:42 a.m.
    City, State: Columbia, MD
    Producer/Non-producer: Producer
    Type: Bioenergy, Fruits, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: Please afford organic growers the same considerations that 
are granted conventional growers. As you know, there is a local and 
organic movement that has been in place for many years. It lessens our 
carbon footprint and strengthens our local economy and provides the 
freshest and most wholesome and nourishing food. As an organic grower, 
may I add that two avenues of assistance are vital for our existence: 
both Drip Irrigation and Fencing--that is, fencing that excludes deer 
from our food plots, are prerequisites for small growers.
    Both of these are expenses that are difficult to bear for small 
growers, but are necessary for successful operations. Every other 
consideration that can be identified and afforded small growers is 
beneficial for them and for local economies.
    (From a 40 year organic and commercial grower).

Warren Turner.
                                 ______
                                 
                         Comment of Laura Turzo
    Date Submitted: Friday, May 18, 2012, 12:42 p.m.
    City, State: Brooklyn, NY
    Occupation: Graphic Artist
    Comment: So much of our lives a is tainted by the control of big 
business, whose policies are most often against health and safety.
    We need to assure that farmers are supported in producing healthy 
food that will not increase the epidemic of ``idiopathic'' illnesses. 
Especially farmers that do not use toxic methods.
    Please protect farmers from the bullying of Monsanto, I would like 
to have my grandson (and your grandchildren too) live in the 
possibility of being disease free.
                                 ______
                                 
                        Comment of Rob Two-Hawks
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: East Palestine, OH
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Agricultural reform is long past due. And, as demand 
increases along with the deficit . . . the need for more sustainable 
methods will make itself known loudly and clearly. Industrial 
agriculture is straining the economy as well as the carrying capacity & 
health of the land. Without viable and affordable forms of agriculture 
America is far from secure. I would hope that more congresspersons 
would get out of their offices and into the fields for awhile to 
appreciate this situation more directly. Thanks for your consideration 
& time.
                                 ______
                                 
                        Comment of Malin Tybahl
    Date Submitted: Friday, May 18, 2012, 10:11 p.m.
    City, State: Brooklyn, NY
    Occupation: Actor/Teacher
    Comment: The state of Agriculture is appalling right now. The way 
agriculture is conducted today waste more of our water resources than 
anything else, and are the biggest polluters of our ground water and 
destroys our oceans at a terrifying rate, with the heavy pesticide use. 
Not to mention it erodes the soil leaving it unable to nurture anything 
to grow. Big farmed food is so toxic, due to all pesticides, it may be 
more harmful to eat than the nutrition's it contains. The over 
production of certain grains, like soy and corn, has led them to being 
ingredients in almost everything as well as feed to cows, who can't 
break down corn naturally but get sick by it, leading to higher use of 
antibiotics. Consequently the population is getting fatter and fatter, 
and sicker and sicker, but with less and less chances to actually cure 
a simple infection. It's a downward spiral of destruction, of not just 
our own species but many. As Einstein said, when the bi is gone we have 
about 4 more years to live.
    Healthy and sustainable farming practices reduces the environmental 
costs, the carbon imprint and health care costs. Want to save money? 
Want a healthier population? Then stop giving tax dollars to Big 
Agribusiness.
    All subsidies to big polluting agribusiness need to stop and they 
should instead have environmental fines when cultivating the land in a 
way that is destructive to the planet. Subsidies should instead go to 
small sustainable organic farms, so the crap food actually cost its 
true value with all the pesticides and carbon pollution on top. Healthy 
foods should be inexpensive and more available so even people making 
minimum income can choose to buy it. And the truth is, organic food is 
not more expensive than crap food if it wasn't for the government 
supporting crap food. And all GMO should be labeled, as well as where a 
product comes from. The future of our planet is dependent on what 
choices we make, and how we choose to cultivate our land is a big part 
of that. Our options are to do it in a sustainable respectful way in 
balance with nature, or wasteful and poisonous for a short period of 
time and then have a shortage of food and water in a few years. What do 
you choose for our children and coming generations?
                                 ______
                                 
                         Comment of Julia Tyler
    Date Submitted: Tuesday, May 15, 2012, 1:29 p.m.
    City, State: Ventura, CA
    Occupation: Director of Religious Education
    Comment: Hello,

    I am concerned about the health of our American people. I would 
like to see a farm bill that increases access to healthy affordable 
food. I work with Latino youth in Oxnard, and I fear the toll the gas 
station food they consume has taken on their bodies.
    My boyfriend works as a technician for heart surgery, and believes 
it is not a coincidence that diabetes and heart failure are more common 
among poor people and their nutrient-poor diets.
    I would also like the bill to cut subsidies to corn and soy bean 
growers, and offer these subsidies to small, organic farmers who 
prioritize our Earth's sustainability. I care that my grandchildren's 
children live on a planet that is still healthy to walk on and breathe 
in. On my commute to work, I am not happy to see strawberry growers 
spraying pesticides into the soil. These toxic chemicals will be there 
for many years, and will harm many people and animals. I am not happy 
that the people spraying these chemicals have to wear big white suits 
and protective face masks. There are other, better ways to grow and 
produce food, and, in great seriousness, I hope writing to the House 
Committee on Agriculture can help make a positive difference for our 
people and country.
            Warmly,

Julia Tyler.
                                 ______
                                 
                       Comment of Lorrayne Tyler
    Date Submitted: Friday, May 18, 2012, 10:43 a.m.
    City, State: Hamilton, MT
    Comment: We need real food in the USA, and we need it to be 
available everywhere, to everyone, especially those in need and those 
who can't afford quality, so they squander money on cheap junk food & 
fast food.
                                 ______
                                 
                         Comment of Laura Tyll
    Date Submitted: Thursday, April 19, 2012, 2:29 p.m.
    City, State: Ubly, MI
    Occupation: Economic Development
    Comment: My father and brother are running the family farm as third 
and fourth generation farmers. I also do the bookwork for the farm and 
see how it's struggling financially please support the farm bill and 
let's get those milk prices back up! I would love to see my son and 
grandchildren someday involved in the family farm.
                                 ______
                                 
                         Comment of S. Tyroler
    Date Submitted: Friday, May 18, 2012, 2:12 p.m.
    City, State: Watsonville, CA
    Occupation: Therapist
    Comment: Supporting High standards for organic farming practices is 
a health crisis. We are killing our bees and other pollinators with 
toxins and pesticides which will lead to our demise.
                                 ______
                                 
                         Comment of Linda Tyson
    Date Submitted: Sunday, May 20, 2012, 11:28 p.m.
    City, State: Flossmoor, IL
    Occupation: Garden Designer
    Comment: We need a fair and healthy farm bill! It's time for real 
reform of the bill. Small, organic, sustainable farmers producing 
healthy food, including fruits, vegetables, and sustainably-raised, 
pastured livestock should more supported
    Subsidies paid to large industrial, and corporate-owned farms 
should be phased out.
    We need a farm bill that protects our nation's small farmers and 
supports local food security.
                                 ______
                                 
                          Comment of Jim Ufkin
    Date Submitted: Monday, March 19, 2012, 9:52 p.m.
    City, State: Geneseo, IL
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: 301-500 acres
    Comment: It is time to get rid of the direct payment and put in a 
financial safety net to help in times of low yields or very low prices. 
Based on a strong crop insurance program.
                                 ______
                                 
                          Comment of Shawn Uhe
    Date Submitted: Friday, May 18, 2012, 1:45 p.m.
    City, State: Edwardsville, IL
    Occupation: Mom
    Comment: I am surrounded by farm land and although it is a 
beautiful setting, my children and I are also surrounded by dangerous 
pesticides and herbicides that are damaging to the water, the air and 
the land. I am very concerned about the negative effects these 
chemicals will have on my family. Please write and support legislation 
that eliminates the need for chemicals on crops.
            Thank you,

Shawn Uhe.
                                 ______
                                 
                         Comment of Susan Ujcic
    Date Submitted: Friday, May 18, 2012, 11:01 p.m.
    City, State: Rochester, WA
    Producer/Non-producer: Producer
    Type: Dry Beans & Peas, Fruits, Vegetables
    Size: 50-150 acres
    Comment: It is time to subsidize vegetable, fruit and legume farms 
and support the recommendation to consume 6-9 a day. If we all wanted 
to adopt the diet recommended by the USDA, we would run out of fruits 
and vegetables in 3 days. With the childhood obesity and diabetes 
epidemic alone, one would think that would be enough to motivate a 
fundamental change in at least our children's food landscape. Please 
use good judgment and support a new agricultural vision which will 
invigorate rural communities.
                                 ______
                                 
             Submitted Statement by Unilever North America
    This testimony is submitted on behalf of Unilever, North America, 
one of the world's leading suppliers of fast moving consumer goods. We 
work to create a better future every day and help people feel good, 
look good and get more out of life with brands and services that are 
good for them and good for others. In the United States, the portfolio 
includes food brand icons such as: Ben & Jerry's, Bertolli, Breyers, 
Country Crock, Good Humor, Hellmann's, I Can't Believe It's Not 
Butter!, Klondike, Knorr, Lipton, Popsicle, Promise, Ragu, Skippy, 
Slim-Fast, Wish-Bone, and a number of personal care products. Unilever 
employs over 10,000 people in the United States with manufacturing 
sites in 19 states and 2010 sales of over $9 billion.
    As one of the largest manufacturers of ice cream and peanut butter 
in the U.S., an adequate supply of sugar is imperative to our success 
and ability to grow our business. The 160 employees at our plant in 
Little Rock, Arkansas, work at the sole production site for Skippy 
peanut butter for the United States and for export to over 50 
countries. In Jonesboro, Arkansas, 400 Unilever employees manufacture 
our line of personal care products. Our 100 person sales team in 
Rogers, Arkansas also works to ensure Unilever products are stocked at 
Wal-Mart stores across the country.
    Unilever is dedicated to producing quality products close to their 
point of sale, reducing miles traveled and our carbon footprint. In 
keeping with our strategy of producing near where we sell, Unilever 
recently invested $230 million into expanding an existing plant in 
Covington, Tennessee which will employ over 200 people and manufacture 
ice cream brands like Breyers, Good Humor, Klondike and Popsicle. Our 
ability to grow, however, is severely impacted by commodity prices and 
with U.S. sugar prices at nearly twice the world market rate, sugar-
containing products Unilever manufactures in the United States are at a 
competitive disadvantage to products made where sugar can be purchased 
at world prices.
    Sugar is found in a wide variety of foods and beverages. It is not 
only a sweetener, but has other important functional properties for 
baking and as a natural preservative. Sugar is an ingredient in ice 
cream, frozen vegetables, pasta sauce, peanut butter, canned fruit and 
many other products.
    Many more Americans work in these sugar-using industries than in 
sugar production and processing. According to the U.S. Census Bureau's 
Annual Survey of Manufactures for 2010, total employment in cane sugar 
milling and refining, and beet sugar manufacturing, was only 13,009. In 
addition, according to the Census of Agriculture, there are 4,022 sugar 
beet farms and 692 sugar cane farms in the entire United States.
    By contrast, in 2010 employment in those segments of the food and 
beverage industry that use significant amounts of sugar was 592,176. 
Yet current sugar policy is designed to favor sugar producers and 
processors by penalizing businesses like Unilever that purchase sugar.
    Current sugar policies represent an antiquated program that needs 
to be reformed. These policies raise consumer prices, distort markets, 
create enormous additional costs for businesses and encourage the 
movement of jobs to other countries, where world market prices can be 
accessed.
    The U.S. sugar program has three basic features. Price supports 
keep U.S. sugar prices above world price levels. Marketing allotments 
are designed to restrict supplies in the domestic market. Import quotas 
also restrict how much sugar can be purchased from international 
markets.
    None of these policies normally involves direct Federal spending, 
but all raise input costs for the manufacturing sector and create 
economic inefficiencies. The negative impact of the sugar program has 
been even greater since passage of the 2008 Farm Bill. In that farm 
bill, Congress: (1) placed new limitations on the Secretary of 
Agriculture's ability to increase sugar import quotas, (2) created a 
new ``Feedstock Flexibility Program'' to buy surplus sugar and re-sell 
it to ethanol plants at a loss to taxpayers (fortunately, this program 
has not yet been used), and (3) raised sugar price supports and took 
other measures that further distorted markets.
    In the period covered since the passage of the 2008 Farm Bill, both 
wholesale and retail U.S. sugar prices set all-time records. Annual 
consumer costs of sugar rose by $4 billion, by some estimates. Ending 
stocks of sugar fell below USDA's traditional target every single year, 
with the Secretary of Agriculture having less flexibility to allow 
additional sugar imports when needed by the market.
    As an example of how bad things have been under the new policies, 
in 2009/10, the United States imported 200,000 tons of ``high-tier'' or 
``over-quota'' sugar. This is sugar that had to be imported outside the 
limits set by import quotas to meet domestic market needs, even though 
such imports are subject to a very high, normally-prohibitive tariff.
    Prices were so distorted in 2009/10, and supplies so short that 
importers actually paid the prohibitive tariff because they had to have 
the sugar. Sugar users paid the extra tariff of over 15 per pound 
because they simply could not obtain the sugar at equal or lower cost 
from domestic production, from normal import quota sources or from 
Mexico (which is not subject to import quotas). Obviously, these supply 
sources were either out of sugar, or domestic prices were so 
artificially high that the transaction actually made economic sense, 
even after factoring in the ``prohibitive'' tariff.
    A recent study by Iowa State University economists estimated that 
U.S. consumers could save $3.5 billion a year, and our economy could 
add up to 20,000 jobs each year, if Congress reformed the sugar 
program. The 2012 Farm Bill is the time for this much-needed reform. 
Congress should take a hard look at the whole panoply of sugar policy, 
but especially at the counterproductive subsidies that were added in 
2008. Getting rid of these would be a good start to a more thorough 
reform to eliminate unnecessary and unwarranted government-directed 
distortions of the marketplace.
    Our company is proud of its history as a producer of products that 
help people feel good, look good and get more out of life and we are 
proud of our 10,000 employees in the United States. We want to continue 
to generate both jobs and economic activity. Unfortunately, the current 
sugar program works against our ability to do that. Congress can help 
consumers, workers and businesses alike by reforming an outdated, 
regressive sugar program in the 2012 Farm Bill.
                                 ______
                                 
                       Comment of Nathan Unsworth
    Date Submitted: Friday, May 18, 2012, 10:06 a.m.
    City, State: Newton, IA
    Occupation: City Parks-Administrative Superintendent
    Comment: I was born and raised in a small farming town in Illinois 
called Alexis, went to Iowa State University and majored in Animal 
Ecology (wildlife) and minored Agronomy, and continue to live in Iowa 
today. As a young professional that stands up for conservation and 
rural development, I hope this next farm bill includes three very 
important things:

    1. Increased funding for water quality issues associated with 
        agriculture

    2. Continued funding for the CRP Program

    3. Funding to help attract and retain young professionals in rural 
        areas.

    My hope is that the new farm bill will address these three things. 
The first two are very similar and comes from my conservation 
background. Water quality is not improving in Iowa and elsewhere around 
the Midwest. We need to do everything we can to protect clean water for 
our citizens. This is truly an economic development issue because 
despite what some people seem to think, we all need clean water to 
live. Clean water is not only important to humans, but the livestock 
and crops we grow in the Midwest, too. I would like to see congress 
continue to fund water quality projects like the buffer program, giving 
money to improve water quality on recreational lakes and rivers around 
the Midwest, and enact stricter polices that ensure producers are 
following their farm plans.
    CRP is another huge portion of the farm bill that I support. When 
CRP was at it is highest levels our pheasant population were up, too. 
If you have come to Iowa you know our pheasant population is down along 
with countless other species. In my eyes every species is worth trying 
to help. However, I know we can't protect and save everything. However, 
I know the more CRP we have on the ground the better our game birds 
numbers will be, which will help bring back our hunting/tourism 
business. Plus, the CRP program also has other benefits--promotes 
cleaner water, reduces soil loss, take CO<INF>2</INF> out of the 
atmosphere, etc.
    Finally, my last important piece is the impact the farm bill has on 
rural life. As someone that grew up in a small town and still resides 
in a rural county, I promote rural development. We need polices in the 
farm bill that promotes rural areas abilities to retain and recruit 
young professionals. The number one reason why young professionals are 
leaving areas is lack of jobs. However, I feel that if we can build up 
the rural areas around the larger cities, we would see young people 
willing to live farther out of the cities and in the smaller towns. The 
way this can happen is by ensuring rural areas are ascetically 
attractive, provide recreational opportunities, potentially provide 
mass transit opportunities to the cities, etc. I just think more can be 
done to promote young professionals recruitment in the rural areas. I 
also think high speed rail going through out the midsection of the 
country would be a positive aspect of rural development, but admit that 
might pertain more closely with other legislation.
    Thank you for taking the time to read my comments. As a proud 
voter, I hope you will listen to ``real rural people'' and enact 
policies we want, not the policies of large corporations that only help 
them profit. We are the ones that live in the rural areas, we care 
about their future, and depend on their prosperity to live.
                                 ______
                                 
                       Comment of Stephanie Urban
    Date Submitted: Sunday, May 20, 2012 3:17 p.m.
    City, State: Bethesda, MD
    Occupation: Artist/Designer
    Comment: As time goes on, we have more and more evidence that the 
food we eat affects our health. People who buy organic food should be 
totally secure in the knowledge that what they are purchasing is the 
purest, cleanest food grown with no genetic modification or added 
substances.
                                 ______
                                 
                        Comment of Sharon Usher
    Date Submitted: Saturday, May 19, 2012, 9:11 p.m.
    City, State: Northport, MI
    Occupation: Counselor/Psychology
    Comment: I am concerned about the violence that big agriculture 
(like Monsanto) is doing to the people all over the planet (in 
countries where their produce is permitted) and to the land that they 
are using to farm their toxic products.
                                 ______
                                 
                      Comment of Ada Ustjanauskas
    Date Submitted: Friday, May 18, 2012, 5:00 p.m.
    City, State: Old Greenwich, CT
    Occupation: Consultant
    Comment: America is fast becoming the bane of the civilized world 
as our food production becomes more commercialized--and less how food 
is meant to be grown.
                                 ______
                                 
                       Comment of Kelly Uusitalo
    Date Submitted: Friday, May 18, 2012, 11:34 p.m.
    City, State: Everson, WA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: More financial investment needs to be given to small 
producers providing sustainably produced products for local 
communities. Local producers provide food security and local jobs that 
create strong healthy communities. It is imperative that we invest in 
our future and small scale local farmers; we are the ones on the front 
lines offering healthy food choices to our local communities and 
diverse populations. Unfortunately too much money and preference has 
been given to large agriculture businesses, lobbyist and corporate 
interest. We in this nation need to redirect our financial investment 
away from commodity subsidies into a food system that is based on 
healthy food that is affordable and available to everyone. We will 
never achieve this if we continue to funnel all our investments into 
and industrial agriculture system that produces industrial byproducts 
rather than food. Support local, invest in the future and promote 
sustainable agriculture by directing a large portion of this year's 
farm bill to small scale farmers, farmers markets, healthy school lunch 
programs and extensions. Invest in our future not corporate futures!
            Thank you,

Kelly Uusitalo,
Organic Farmer.
                                 ______
                                 
                        Comment of Imena Valdes
    Date Submitted: Friday, May 18, 2012, 2:06 p.m.
    City, State: Kissimmee, FL
    Occupation: Student
    Comment: We as a people need a government that works in favor of 
our best interests, such as our health and well-being. Not a government 
that caters to corporations and profits.
                                 ______
                                 
                       Comment of Abel Valenzuela
    Date Submitted: Friday, April 20, 2012, 9:54 a.m.
    City, State: Milford, UT
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: Farm Takeover Bill legislation, would not improve the well 
being of the animals neither food safety or quality, it would increase 
cost of production and we are going to reduce production like it 
happened in Germany when in 2010 they regulated the cage of hens. This 
bill is not based in science but rather in Feelings.
    Thanks.
            Sincerely,

Abel Valenzuela.
                                 ______
                                 
                    Comment of Jacqueline Valenzuela
    Date Submitted: Friday, April 20, 2012, 2:14 p.m.
    City, State: Mesa, AZ
    Occupation: Stay-at-Home Mom
    Comment: I am tired of having poison ridden fruit and vegetables. 
The health of my family is important to me and I feel like the system 
that we have for our agriculture is broken. The pesticides that are 
used are so horribly dangerous to our health I can't even understand 
why they were allowed to be put to use in the first place. We need 
changes to this broken system. Please support changes to the upcoming 
farm bill that will help reform the system we have now. Support BFROA 
and LFFJA. Thank you for your help.
                                 ______
                                 
                         Comment of Ena Valikov
    Date Submitted: Friday, May 18, 2012, 3:20 p.m.
    City, State: Long Beach, CA
    Occupation: Veterinarian
    Comment: I believe it is crucial to support organic farmers 
utilizing sustainable techniques with minimal use of herbicides and 
insecticides which have significant cumulative effects on public 
health. It is vital to our health to get away from genetically modified 
commodity crops and create a future of farming in which the livestock 
is treated humanely and the Earth's bounty is harvested in harmony with 
nature.
                                 ______
                                 
                    Comment of Alexandra van de Kamp
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Stony Brook, NY
    Occupation: University Lecturer
    Comment: How can the health of a country's citizens be less 
important than corporate profit? Healthy food is also practical as it 
prevents and fights against other health issues that come from 
consuming foods affected by pesticides, hormones and anti-biotic usage. 
A healthy nation physically, is just that, a healthy nation! How else 
can we move forward as a nation, compete with other rising global 
countries, and be at our best intellectually and physically if we are 
not truly ``healthy''?
                                 ______
                                 
                     Comment of Michele Van Derrick
    Date Submitted: Friday, May 18, 2012, 2:43 p.m.
    City, State: West Newbury, MA
    Occupation: Mother
    Comment: Please stop letting Monsanto walk all over the government. 
The people deserve better. Let's get the chemicals out of our food 
supply. Please make organics much easier to access and afford.
    Thank you.
                                 ______
                                 
                    Comment of Annelies van Dommelen
    Date Submitted: Saturday, May 19, 2012, 8:08 a.m.
    City, State: Lambertville, NJ
    Occupation: Artist, House Painter, Bartender, Etc., Self-Employed
    Comment: I live a simple life, but the money that I spend is on 
quality, organic, when I can, locally produced food. Funding should be 
put forward to encourage healthy food, especially for the poor and 
young. There is no reason to keep feeding people food that will tax our 
health system. Do not subsidize bad food!
                                 ______
                                 
                      Comment of Tracey Van Hooser
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: Tiburon, CA
    Occupation: Mom, Marketer
    Comment: Farm subsidies are currently a joke. Millions of taxpayer 
dollars are doing directly into the pocket of giant agricultural firms 
that don't need it and don't benefit the public. I want my tax dollars 
to support sustainable organic farming that doesn't destroy the 
environment (our soil and water and air are a public resource that 
needs to be protected for the good of everyone) with poisons, treats 
animals with kindness and provides healthy food at a good price. It is 
ridiculous that overly processed junk foods are so much cheaper to eat 
than non-processed vegetables. The epidemic of obesity is a direct 
outcome of our farm subsidies and we must stop making the same 
disastrous policy decisions because of the electoral map. Have a spine 
and stand up for the average American, not factory farms.
                                 ______
                                 
                   Comment of Lesley Van Leeuwen-Vega
    Date Submitted: Friday, May 18, 2012, 12:24 p.m.
    City, State: Spring Lake, MI
    Occupation: Business Owner--Graphic Designer/Writer
    Comment: History will judge us by the important decisions we are 
making today. This is one of them. The health of our citizens is 
directly affected by the food grown and consumed. Environmentally-
sensitive and sustainable agricultural practices with respect and 
viable reward for the farmer and farm workers are the hallmark of a 
truly civilized (and, indeed, sustainable) society.
                                 ______
                                 
                        Comment of Ginny Van Loo
    Date Submitted: Thursday, May 17, 2012, 12:27 p.m.
    City, State: Milwaukie, OR
    Occupation: Program Manager
    Comment: The farm bill should help fund the RC&D's across the 
country. Pulling their funding was a big mistake in that they are able 
to leverage Federal dollars from $6.00 to $12.00 to one. They are the 
on the ground face to face organizations that have been helping 
farmer's for over 5 decades. To unfund them is just wrong. $51,000,000 
would fund them all nationally and continue help provide the technical 
assistance needed for Conservation and Development nationwide. Please 
include this in the farm bill.
                                 ______
                                 
                     Comment of Isabel Van Sicklen
    Date Submitted: Friday, May 18, 2012, 1:58 p.m.
    City, State: Modesto, CA
    Occupation: Psychotherapist
    Comment: Please keep our food clean and pure. Do we really need to 
continue adding toxins and carcinogens to our daily lives in something 
as basic as the food we eat?
                                 ______
                                 
                      Comment of Eileen Van Soelen
    Date Submitted: Sunday, May 20, 2012, 9:33 a.m.
    City, State: Berkeley, CA
    Occupation: Painter Fine Art
    Comment: I worked in the healthcare ``industry'' for several years. 
What I learned is that 70 cents of Every dollar spent on healthcare is 
spent on health problems we human beings have Created and caused for 
ourselves ``unintentionally''. Organic food, fresh water, clean air, 
are the Backbones of good health. Watch at www.topdocumentaryfilms.com, 
the World According to Monsanto under environment, film #65. Owning 
seeds? Owning water? Owning air? What, are (some)men creating Hell on 
Earth for money and power? Intentionally? Are they that angry and 
miserable, greedy and vile? I hope not.
                                 ______
                                 
                     Comment of Patricia Van Twyver
    Date Submitted: Friday, May 18, 2012, 2:09 p.m.
    City, State: Lake Helen, FL
    Occupation: Retired
    Comment: It is time that we take back our farms. Big agra is not 
doing the job. Too many pesticides etc. Small farmers can do so much 
better and the food is better for you. Mass production is not the 
answer. Keep Monsanto off the farm.
                                 ______
                                 
                       Comment of Mary Van Valin
    Date Submitted: Friday, May 18, 2012, 11:16 p.m.
    City, State: Traverse City, MI
    Occupation: Retired Teacher
    Comment: I request the Agriculture Committee consider the big 
picture of health for our people and our land and waters. Small organic 
farmers are transforming our agricultural practices so that we can eat 
healthier food and take care of our natural resources at the same time. 
These local producers are helping create more resilient communities, as 
well. It is time to do the right thing for our collective future. Write 
a farm bill that supports and encourages farming practices that bring 
health to our ecosystems as well as our bodies. It's really just one 
more test of our government. Is it possible any more to do the right 
thing, that is what supports the well-being of our people and 
ecosystems, or is it still just another sell out to the corporations? 
As a citizen, I request a farm bill that supports health on all levels, 
not just the profits of the large corporations. Thank you for 
considering that possibility.
                                 ______
                                 
                       Comment of Nike VanArsdale
    Date Submitted: Friday, May 18, 2012, 12:47 p.m.
    City, State: Longmont, CO
    Occupation: Sales Manager
    Comment: I work in the food industry selling quality food. It's 
time that the farm bill supports food that is healthy and nutritious. 
It has become clear in the last couple of years that corn and soybeans 
are no longer being used for nourishing the people in this country. The 
farm bill is supporting farming that has become outdated and out of 
touch with what the people want and need.
                                 ______
                                 
                    Comment of Patrician VanBuskirk
    Date Submitted: Thursday, May 10, 2012, 7:04 p.m.
    City, State: Oak Park, IL
    Occupation: Day Care Provider/Volunteer at Food Pantry
    Comment: It would be a real shame to see SNAP cut from the budget 
as every week we use that food to feed the hundreds of hungry families 
who come to the pantry don't cut SNAP!
                                 ______
                                 
                       Comment of Patricia Vance
    Date Submitted: Friday, May 18, 2012, 8:10 p.m.
    City, State: Tucson, AZ
    Occupation: Elementary School Safety Monitor (P/T)
    Comment: You want to cut $33 billion for Food Stamps and give it to 
rich people to sit on their rears? I am at least Trying to make an 
honest living. Please stop cutting money from education so I can get a 
job that would actually allow me to Live, pay my bills and buy my own 
food. I fully support H.R. 3286, H.R. 3236, Conservation programs and 
Maintaining EQIP Organic Initiative.
                                 ______
                                 
                     Comment of Paulette Vandegriff
    Date Submitted: Friday, May 18, 2012, 4:33 p.m.
    City, State: Greenfield, IN
    Occupation: Retired
    Comment: The Supplemental Nutrition Assistance Program (SNAP) is 
the cornerstone of the nutrition safety net, providing 46 million low-
income people with monthly benefits that are timely, targeted, and 
temporary.
    SNAP proved to be one of the most responsive safety net programs, 
growing quickly to meet rising need resulting from high unemployment in 
the recession. 84% of benefits go to households with a child, senior, 
or disabled person, and new participants spend an average of 10 months 
on the program. Funding cuts and other policy changes would require 
reductions in benefits or eligibility and impede SNAP's responsiveness 
when our economy falters or unemployment rises.
    The FY 2013 Agriculture Appropriations bill should oppose funding 
cuts and harmful policy proposals to SNAP, including efforts to block 
grant, cap, or cut funding; impose restrictive work requirements; or 
otherwise reduce benefits or restrict participation.The 2012 Farm Bill 
should maintain funding to support current eligibility and benefit 
levels and oppose harmful policy changes.
    Thank you for your consideration.

Paulette Vandegriff,
[Redacted],
Greenfield, IN.
                                 ______
                                 
                         Comment of Greg Vanden
    Date Submitted: Friday, May 18, 2012, 1:16 p.m.
    City, State: Niles, MI
    Occupation: Sales
    Comment: Agricultural subsidies are entitlement programs that need 
to be shut down. We no longer have the financial capability of paying 
for these electoral gifts. Take the ethanol program for example, what a 
total money pit! It is time to face this country's debt and cut all the 
pork no matter how long it has been in play!
                                 ______
                                 
                      Comment of Noelle Vandenberg
    Date Submitted: Sunday, May 20, 2012, 4:47 p.m.
    City, State: Delray Beach, FL
    Occupation: Hair Stylist
    Comment: Dear Reprehensive of 22 district,

    I am writing you today to urge the U.S. government to reform the 
U.S. food and agriculture policy. We must adopt sustainable practices 
that put the health of its citizens, the land and the livelihood of 
farmers & farm workers Over the interests of industrial agriculture 
lobbyists.
    Our future and especially our children's future depends in this.
                                 ______
                                 
                       Comment of Jane Vanderhoof
    Date Submitted: Friday, May 18, 2012, 3:03 p.m.
    City, State: Port Angeles, WA
    Producer/Non-producer: Producer
    Type: Field Crops, Fruits, Vegetables, Other
    Size: Less than 50 acres
    Comment: Norm, Do your homework to learn that conventional 
agriculture is doomed because it destroys the soil, is not a 
sustainable method of feeding people as we much into the end-of-oil 
era. Please stop subsidizing conventional agriculture. The only hope 
for the future is returning to our agrarian roots, and local economy. 
Read the book Fatal Harvest and see what's coming if you don't stop 
what you are doing.
    Thank you.
                                 ______
                                 
                      Comment of Rick VanderKnyff
    Date Submitted: Wednesday, May 16, 2012, 11:52 a.m.
    City, State: Woodinville, WA
    Occupation: Online Program Manager (Microsoft)
    Comment: hanks for this opportunity to comment.
    I am not a producer myself, but I am a very interested observer, 
and serve on the board of an organization that works to protect and 
preserve small, family-run farms in the state of Washington. In that 
capacity, I have had the opportunity just in the last week to visit 
five farm properties (three in eastern Washington, two in the Puyallup 
River Valley). I have also had a chance to meet a number of farmers 
over the course of these visits. I have been involved in farmland 
preservation for 4 years, and these most recent conversations mirror 
what I have heard time and again.
    A couple of important points:

    1. The true innovation in American agriculture--innovation that is 
        geared less to short-term profits and bizarre distortions of IP 
        laws and more to true long-term sustainability--is happening on 
        small farms. This is the innovation that tackles truly 
        important questions: How will we care for the long-term health 
        of our soils, the safety of our foods, the viability of farming 
        as a profession? I have met farmers in my state who are 
        tackling these issues in incredibly resourceful ways, and 
        generally without the assistance of the Federal government (and 
        against the commodity pressures of big-time ag).

    2. Our farmer population is aging and is not being replaced. That 
        is largely because large-scale commodity farming is geared to 
        benefit everyone at the expense of the individual farmer. 
        Commodity pressures do not make farming an attractive career. 
        On the other hand, I see young people lining up to learn 
        farming from mentors on smaller, organic or biodynamic farms. 
        At this scale, farming can be a fulfilling career, and one that 
        benefits society at large. The Federal government should divert 
        at least some of the many millions/billions of dollars it pours 
        into big ag into program that encourage young farmers to enter 
        the profession and helps them secure the land to do it.

    I'll stop there but I hope you have the chance to personally visit 
small-scale sustainable farms and experience the passion and 
entrepreneurship that drives this part of our economy.
    Specific recommendations (and, full disclosure, these are verbatim 
from the National Sustainable Agriculture Coalition, but I support 
these points wholeheartedly):

  <bullet> America needs a farm bill that makes healthy food widely 
        available to all Americans--including schoolchildren! I urge 
        you to vote for a bill that provides flexibility for states to 
        use existing food procurement programs to purchase fresh, 
        healthy food from local farmers and ranchers.

  <bullet> And maybe most importantly of all, for the future of our 
        state and all who live here, pass a farm bill that protects our 
        natural resources--protect the Conservation Stewardship Program 
        from unfair funding cuts, and improve it by ranking 
        applications solely on their conservation benefits. Farmers 
        count on CSP and other conservation programs to conserve soil 
        for future generations, keep water and air clean, and create 
        habitat for wildlife--all while farming profitably.

  <bullet> I also want to see legislation that invests in the next 
        generation of farmers and ranchers--guarantee $25 million per 
        year in mandatory funding for the Beginning Farmer and Rancher 
        Development Program. We need a national strategy and commitment 
        to support beginning farmer and ranchers entering agriculture. 
        Our farm population is aging and now is the time to nurture new 
        agriculture start-ups.

  <bullet> I also urge you to support a farm bill that funds the 
        Organic Agriculture Research and Extension Initiative at $30 
        million per year in mandatory funding. Investment in 
        agricultural research is vital to continued productivity and 
        innovation in growing and diverse sectors of American 
        agriculture, such as organic agriculture.

    I thank you for your important work in shaping this bill.

Rick VanderKnyff,
Woodinville, WA.
                                 ______
                                 
                       Comment of Susan VanDerzee
    Date Submitted: Friday, May 18, 2012, 5:44 p.m.
    City, State: Durham, CT
    Occupation: Retired Newspaper Editor and Home Producer
    Comment: I believe our country is best served by encouraging family 
farms and not big-corporation agriculture which destroys the land. We 
must encourage healthy, sustainable practices and not make feeding 
people into an agribusiness. Food should not be a commodity on the 
stock exchange. It is a basic human need.
                                 ______
                                 
                         Comment of Naomi Vann
    Date Submitted: Friday, May 18, 2012, 4:47 p.m.
    City, State: Duluth, GA
    Occupation: Retired
    Comment: It seems the government is trying to kill us off slowly by 
destroying our beautiful Earth with deadly toxins. What's more 
important in life than our food, along with our freedom and worshiping 
our God without fear. Let us fight to stop this take-over of our 
agriculture just for the sake of money.
                                 ______
                                 
                        Comment of Barb Varellas
    Date Submitted: Thursday, May 17, 2012, 2:49 p.m.
    City, State: San Dimas, CA
    Occupation: Teacher
    Comment: The farm bill must contain sustainable agriculture that 
protects our water, air and soil. Get rid of subsidies to Big 
Agribusiness and help the small family farmer. Clean up the criteria 
for organic.
                                 ______
                                 
                       Comment of Veronica Varner
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: Millersville, MD
    Occupation: Construction Estimator
    Comment: Its time our elected representatives begin to care about 
the health and welfare of the people they are supposed to serve instead 
of the big agribusiness that doesn't care about Our health, just about 
getting approval for unsafe products--by hook And by crook--all in the 
name of the almighty dollar.
                                 ______
                                 
                       Comment of Carmela Varvaro
    Date Submitted: Friday, May 11, 2012, 2:37 p.m.
    City, State: Akron, OH
    Occupation: Secretary
    Comment: Please consider inclusion into the farm bill, the need for 
organic farming. Monsanto continues to use GMO seed to crop our 
nation's farmlands. Most of Europe, Canada and other nations have 
outlawed GMO and the use of dangerous herbicides produced by Monsanto & 
BASF. Germany has run BASF basically out of their country, only to have 
them building a facility now in Raleigh. This country will sacrifice 
the health and well-being of its citizens to allow big business to 
control our food crops. If you are at all knowledgeable about the 
dangers of these super herbicides, the contamination of our food and 
milk supplies, I implore you to designate monies to the organic farmers 
who have not succumbed and continue to try and produce good, healthy 
food crops so our children and their children can grow up healthy.
            Sincerely,

Carmela Varvaro.
                                 ______
                                 
                      Comment of Jennifer Vasquez
    Date Submitted: Friday, May 18, 2012, 2:36 p.m.
    City, State: Fort Belvoir, VA
    Occupation: Homemaker
    Comment: I would like to take the time to ask, no . . . Beg you to 
please support organic products . . . it is all my family and I eat. 
Because we have cut down on our intake of process foods I have lost 
weight, the kids have more energy and it makes me happy to know that I 
am cooking Healthy foods for them that are free of pesticides and other 
harmful chemicals. I understand that not everyone feels like this, that 
some people don't care where their foods come from, but my family cares 
. . . my husband serves in the military to protect this country, my job 
as a homemaker is to secure the health of the future generation . . . 
please, give us the option of being able to buy Organic!
    Thank you for taking the time to read this.
                                 ______
                                 
                        Comment of Carey Vaughan
    Date Submitted: Saturday, May 19, 2012, 6:59 a.m.
    City, State: Jefferson City, MO
    Occupation: Physician
    Comment: This is much about local economics and jobs at the Local 
level as it is about creating healthy and sustainable farming practices 
that are in line with securing and repairing damage that has occurred 
by way of corporate farming and agriculture. Our health and the health 
of our environment demand that we find environmentally sustainable and 
people friendly (i.e., non-toxic) ways of producing our country's food 
supply.
                                 ______
                                 
                        Comment of Laura Vaughan
    Date Submitted: Friday, May 18, 2012, 4:24 p.m.
    City, State: Rosemount, MN
    Occupation: Director of Real Estate
    Comment: I urge you to work on a better farm bill that leads to 
healthier organic foods for everyone. Please support our good 
nutritional programs, organic farmers and sustainable farming 
practices.
                                 ______
                                 
                        Comment of Susan Vaughan
    Date Submitted: Friday, March 16, 2012, 8:56 a.m.
    City, State: Winston Salem, NC
    Occupation: Administrative Assistant
    Comment: Please support a significant increase to the TEFAP 
program. Many people in our community--unemployed and working poor--
need food assistance on a regular basis. This program provides needed 
food in a direct way. Don't cut it! Increase it!
                                 ______
                                 
                          Comment of Z. Vaughn
    Date Submitted: Saturday, May 19, 2012, 5:34 p.m.
    City, State: Houston, TX
    Occupation: Stay-at-Home Mom
    Comment: With the rise in cancer rates, diabetes, and other 
diseases, the citizens of the United States have become aware that much 
of it is related to the toxic produce and meat that have been approved 
for the consumption of the public to the benefit of the companies 
producing it. Please place humanity before the ``bottom line'' when 
writing the farm bill. Thank you.
                                 ______
                                 
                        Comment of Jennifer Veal
    Date Submitted: Friday, May 18, 2012, 4:01 p.m.
    City, State: Marietta, GA
    Occupation: Business Administrator
    Comment: I would like to see more focus on educating people on the 
value of naked Real food (i.e., fruits and vegetables!) Emphasis on 
sustainable farming practices. And to expose how livestock is raised in 
our country and how it could be raised.
                                 ______
                                 
                    Comment of George Arthur Veghte
    Date Submitted: Saturday, May 19, 2012, 4:35 a.m.
    City, State: Whiting, NJ
    Occupation: Retired
    Comment: Good Day, I have seen so many issues with the small family 
farmers in our country directly caused by big AGRA, Our food supply is 
being threatened by GMO, The small farmer that tries to produce natural 
food and raise livestock, who stands up to these big Agra Corporate 
farms, are being targeted, If we do not keep our food production safe 
from this corporate foreign bank run globalist take over then we will 
lose our country we must protect the small farmer and stop these bogus 
regulations, that have been in use for hundreds of years, We must keep 
control of the destiny and future of all of our free United States.
                                 ______
                                 
                        Comment of Marie Venner
    Date Submitted: Friday, May 18, 2012, 1:37 p.m.
    City, State: Lakewood, CO
    Occupation: Mom, Self-Employed Researcher/Report Writer
    Comment: Subsidies should be eliminated for large corporate farms 
(over $100K or $2OOK net profit per year?). All farms should have to 
comply with environmental laws, which protect all of us. Regular 
administration of antibiotics should also be outlawed, as this is 
harming public health, reducing abilities' to fight infection. We are 
relying on you to attend to the public interest, not the interests of 
large corporate contributors. We need your help and responsibility!
                                 ______
                                 
                       Comment of Ava Venturelli
    Date Submitted: Saturday, May 19, 2012, 10:00 a.m.
    City, State: Burbank, CA
    Occupation: Retired Credit Union CEO and Gardener Extraordinaire
    Comment: It is time to stop subsidizing big industrial food 
producers. They will never ``feed the world'' they will only torture 
animals, genetically modify what nature has made perfectly and kill the 
nutrients in the soil with the poison they must use to grow their 
crops. Instead, help small organic farmers on a local level to thrive 
and thus heal our out of control and poisonous food supply. No more 
99 cents burgers made of pink slime. Quit giving them money and that 
burger will cost $300. Time for bold moves so get with the game people!
                                 ______
                                 
                      Comment of Vasan Venugopalan
    Date Submitted: Friday, May 18, 2012, 2:01 p.m.
    City, State: Irvine, CA
    Occupation: Professor
    Comment: Dear Honorable Members of the House Agriculture Committee,

    I am writing you as an ordinary citizen concerned about the health 
of our nation. As you know there is a health crisis in our country as 
heart disease, hypertension, diabetes, and obesity have reached 
epidemic proportion. Many health experts believe this is due to our 
poor food supply which, while generally safe, is over industrialized 
and processed. All of you have great influence to greatly improve this 
situation with the farm bill. I encourage you to consider the following 
points:
    Between 2008 and 2010, the farm bill spent $39.4 billion of 
taxpayer money subsidizing commodity crops. These do little to improve 
the health of our nation and is more than eight times what has been 
spent on perennially underfunded programs to support research, 
promotion and purchasing of fruits and vegetables. These include an 
array of programs that buy fruit and vegetable snacks for low-income 
schools, and invest in research and marketing to help organic, local 
and sustainable farmers.
    As a result I support:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

            Thank you,

Vasan Venugopalan,
[Redacted],
Irvine, CA.
                                 ______
                                 
                       Comment of Joelle Verbeke
    Date Submitted: Friday, May 18, 2012, 12:33 p.m.
    City, State: Austin, TX
    Occupation: Real Estate Investments
    Comment: We must protect organic farms big and small and not let 
the big agricultural corporations dictate what they want to feed us 
which is mostly unhealthy and depleted of vitamins and minerals not to 
mention the indigestible protein that derives from GMO crops per the 
ongoing research. We have over 7 billion people on Earth and GMO seeds 
are only good for 1 season and cannot reproduce. We are putting our 
food in the hands of profiteering practices, we must become wiser.
    Thanks.
                                 ______
                                 
                        Comment of Bobbie Vergo
    Date Submitted: Saturday, May 19, 2012, 12:48 p.m.
    City, State: Indianapolis, IN
    Occupation: Occupational Therapist
    Comment: I am constantly dumbfounded at the decisions made by the 
leaders of our country to choose to not only allow but encourage the 
genetic modification of our food--and the slow and steady destruction 
one of the foundations of our nation that is agriculture. That anyone 
would turn a blind eye to the impact the industrialization of the food 
industry has on the health of our nations citizens makes me question 
the integrity of our nation's leaders. I hope that you will consider 
putting People and Not money first and that you will make the decision 
to support legislation that backs initiatives to support sustainable, 
responsible, and organic means of producing food and protecting those 
dear, hard working citizens who engage in methods to produce food in 
those ways. That said, I support the full endorsement of all provisions 
of the Local Foods, Farms and Jobs Act (H.R. 3286). I support fully 
funding conservation programs, such as the Conservation Stewardship 
Program, and making sure that enrollment in any new insurance subsidies 
are tied directly to compliance with conservation programs. I support 
the implementation of all provisions of the Beginning Farmer and 
Rancher Opportunity Act (H.R. 3236), and lastly maintaining the EQIP 
Organic Initiative. I hope you will support these as well!
                                 ______
                                 
           Joint Comment of Pam, Rob, Miko, and Isaac Vergun
    Date Submitted: Friday, May 18, 2012, 1:36 p.m.
    City, State: Beaverton, OR
    Occupation: Sociologist/Public Policy Analyst/Homemaker and Mom; 
Economist; School children
    Comment: It is extremely important to me that you ensure:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    My family does everything we can to buy organic and from local 
family farms, to eat healthy food so that we will have good lives which 
also means low medical costs. We resent corporations that are promoting 
toxic practices including the use of GMOs and their encroachment on 
other crops. And the additional cost that we bear in buying higher 
quality food and through taxes because of anti-environment/anti-social 
responsibility subsidies.
    Agriculture needs to be again about these core values of health, 
happiness, and seeing that the environment is well cared for, not about 
propping up wealthy corporations and promoting unsustainable practices.
    We also ask that each member of the committee look at what 
organizations are supporting your election campaigns and do not take 
money from groups that do not respect the above principals.
    Thank you.
                                 ______
                                 
                       Comment of Mary Vermeulen
    Date Submitted: Friday, May 18, 2012, 3:48 p.m.
    City, State: Waynesboro, VA
    Occupation: Retired Educator
    Comment: As the daughter and sister of small farmers, I know the 
benefits of receiving the products of small farms. Now as an adult, I 
abhor the practices of Big Agriculture and believe we must be careful 
and move slowly with genetic engineering. The quality of farm products 
must be protected. As a believer in quality, I chose to purchase 
locally grown, organic produce, eggs, and dairy products. I enjoy the 
same quality and taste of these products that I had as a child. A great 
deal of quality is lost through the practices of Big Agriculture. Yes, 
we must feed the world, however, we must do so with careful attention 
to quality and safety.
                                 ______
                                 
                        Comment of Emily Vidrine
    Date Submitted: Friday, May 18, 2012, 1:47 p.m.
    City, State: Lowell, MA
    Occupation: Researcher
    Comment: It is absolutely urgent that we support sustainable and 
healthy farm practices and discontinue the use of chemical pesticides 
and fertilizers which are literally killing the ecosystems we rely on 
heavily for our sustenance.
                                 ______
                                 
                        Comment of Daniel Viele
    Date Submitted: Sunday, May 20, 2012, 3:54 p.m.
    City, State: Santa Rosa, CA
    Occupation: Property Management, General Contractor
    Comment: Support true cost of goods pricing, no fixing by 
government or other entities. Milk products, meat, eggs, etc. should be 
sold by it's cost to produce, not manipulated pricing. All products 
must reflect their true cost.
    End subsidies (aka direct payments and countercyclical commodity 
programs), and replace them with loophole-free agriculture risk 
coverage. Additionally, implement a cap on crop insurance premium 
subsidies.
    Support family farmers that really need help, not the biggest farms 
that don't.
                                 ______
                                 
                         Comment of Dawn Vierra
    Date Submitted: Friday, May 18, 2012, 1:42 p.m.
    City, State: Salt Lake City, UT
    Occupation: Administrative Assistant
    Comment: We desire Real reform. We look to our farmers that have 
integrity to produce an organic, healthy, non GMO product. We no longer 
will put up with our heath & welfare being sold down the river to big 
agra corporations & our representatives.
                                 ______
                                 
                       Comment of Alyse Viggiano
    Date Submitted: Friday, May 18, 2012, 10:29 p.m.
    City, State: Pittsburgh, PA
    Occupation: Student
    Comment: Regardless if my food is considered organic, what matters 
more is whether or not I am paying the farmer enough to produce it. 
What stimulates and improves the local economy is buying local. The 
problem that arises here is that many do not have the opportunity or 
understand what local really is and that is where Slow Food is making a 
real change.
                                 ______
                                 
                       Comment of John Vignocchi
    Date Submitted: Sunday, May 20, 2012, 7:05 p.m.
    City, State: San Francisco, CA
    Occupation: Corporate Development
    Comment: Stop subsidizing big agriculture! And end tariffs on 
imported sugar. No wonder American's have high fructose corn syrup in 
so many foods . . . buying sugar in the U.S. is 2x more expensive than 
other nations (because of America's ridiculous tariffs). Sugar tariffs 
increase manufacturing costs and reduces American food manufacturers 
global competitiveness, increases prices for American consumers, and 
increases the use of high fructose corn syrup (another benefactor from 
the Federal government's crony approach to agriculture).
                                 ______
                                 
                     Comment of Richard Villadoniga
    Date Submitted: Thursday, May 17, 2012, 2:36 p.m.
    City, State: St. Augustine, FL
    Occupation: Teacher/Founder of Slow Food First Coast
    Comment: On behalf of Slow Food First Coast, a nonprofit 
organization promoting a food system based on quality and pleasure, 
environmental sustainability, and social justice, I encourage Congress 
to pass a farm bill that funds local food systems, organic farmers, 
small family farms, an more fairness for all involved in our food 
system, including small producers, farmworkers, and children. Please 
stop subsidizing industrial agriculture giants only, and begin to fund 
in greater amounts those that will strengthen our local and regional 
food systems.
                                 ______
                                 
                  Comment of Mirtha L. Villamil, R.N.
    Date Submitted: Saturday, May 19, 2012, 5:42 p.m.
    City, State: West Palm Beach, FL
    Occupation: Registered Nurse
    Comment: Dear Mr. West:

    As a Registered Nurse, I know the importance of a good and balance 
nutrition. Mr. West please advocate for maintaining and strengthening 
low income children, single mothers and the elderly critical nutrition 
programs. Please support the good, clean, and fair food and farm bill.
            Thank you,

M.L. Villamil, R.N.
                                 ______
                                 
                     Comment of Teresita Villasenor
    Date Submitted: Sunday, May 20, 2012, 2:24 p.m.
    City, State: Carlsbad, CA
    Occupation: Nutrition Counselor and Body Alignment
    Comment: I have been eating organic since 1971 and am in better 
health because of it. Parents very ill with diabetes, cancer and 
arthritis.
    We need an organic health bill.
    Keep the USA strong and healthy, buy organic, support organic 
farmers.
            Thank you,

Sita Paloma.
                                 ______
                                 
                     Comment of Lara Villavicencio
    Date Submitted: Friday, May 18, 2012, 10:22 a.m.
    City, State: Minneapolis, MN
    Occupation: Sales
    Comment: Please support fresh fruit and vegetable production. 
Reduce and eliminate subsidies on crops that do not support good health 
including corn, soy, canola, sugar.
                                 ______
                                 
                        Comment of Karen Vincent
    Date Submitted: Saturday, May 12, 2012, 1:57 a.m.
    City, State: Burlington, WA
    Occupation: Receptionist/Server
    Comment: America needs a farm bill that makes healthy food widely 
available to all Americans--including schoolchildren! We must provide 
flexibility for states to use existing food procurement programs to 
purchase fresh, healthy food from local farmers and ranchers.
                                 ______
                                 
                      Comment of Angela Virtudazo
    Date Submitted: Saturday, May 19, 2012, 9:12 a.m.
    City, State: Pacific, MO
    Occupation: Corporate Training Consultant
    Comment: Please keep the funding for organic farming and beginning 
farmers intact. We need a healthier. Action, not a genetically modified 
future. Thank you.
                                 ______
                                 
                         Comment of Ben Vitale
    Date Submitted: Friday, May 18, 2012, 3:09 p.m.
    City, State: South Orange, NJ
    Occupation: Computer Software Developer
    Comment: Please pass a reformed farm bill. Here are some of the 
ideas that I think need attention:

  <bullet> end distorting subsidies for corn, soy, etc. that lead to 
        the obesity epidemic. encourage farmers to grow green 
        vegetables.

  <bullet> include the ideas from the Local Foods, Farms and Jobs Act 
        (H.R. 3286)

  <bullet> make policy that encourages small new farmers, and lessens 
        support for Cargill, ADM, etc. Agribusiness doesn't need any 
        government help.

  <bullet> include environmental protections that preserve farms in 
        densely populated areas, don't overuse pesticide, herbicide, 
        and fertilizer

  <bullet> GMO labeling

    Thanks.
                                 ______
                                 
                    Comment of Ellyse Adele Vitiello
    Date Submitted: Saturday, May 12, 2012, 8:58 p.m.
    City, State: Los Angeles, CA
    Occupation: Retired Civil Service: New York State Department of 
Labor
    Comment: I would hate to be hungry when I'm old. Please help our 
senior citizens in this time of serious challenges to economic 
survival. There are headlines in the news of suicides in Italy and 
Greece, when older folks cannot manage to get by in the current crisis. 
Let's not have this problem in the USA. Thank you for your 
consideration to this problem.
                                 ______
                                 
                        Comment of Ann Vitovitch
    Date Submitted: Friday, May 18, 2012, 2:42 p.m.
    City, State: Northampton, PA
    Occupation: Homemaker
    Comment: Please remember in making your decisions when voting on 
the next farm bill that the outcome will not only affect us but also 
all of our congressional leaders and their families. The farmer is the 
most ``vital'' part of our culture; one we will never be able to do 
without! Supporting them in any way possible is the key element to our 
very existence.
                                 ______
                                 
                         Comment of T. Vizzard
    Date Submitted: Friday, May 18, 2012, 9:58 p.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: I support the following:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

        ``By failing to place limitations on crop insurance subsidies 
        and to re-attach soil erosion and wetland conservation 
        requirements to crop insurance programs, the Committee has 
        failed to do the full reform that is needed.''

    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    Please listen to the people of this country and stop listening to 
Big Ag, Big Insurance and other corporate entities.
    Congress is ruining sustainable farming and organic farming all in 
the interest of election funding and other selfish interests of 
congress and Big Business.
    I am disgusted and will do everything in my power to fight and 
defeat this attitude and the perpetrators.
                                 ______
                                 
                         Comment of Susan Vogt
    Date Submitted: Friday, May 18, 2012, 12:54 p.m.
    City, State: Fairbanks, AK
    Occupation: Environmental Consultant
    Comment: I would hope this farm bill actually does something to 
help the real small family farmers and stop the huge subsidies to mass 
corporate farms that promote antibiotics, cause massive polluted runoff 
of fertilizer and animal waste. Make the corporate farmers pay for 
cleaning up their own farms! Not the American taxpayers!
                                 ______
                                 
                         Comment of Kevin Volk
    Date Submitted: Wednesday, May 09, 2012, 10:28 a.m.
    City, State: Marlborough, MA
    Occupation: Senior Program Manager
    Comment: Please support this crucial farm bill--we have a right to 
healthy, organic and local foods at an affordable price!
    Stop backing big-Agro and support the right movement--real food! 
Our future depends on this bill. Kids are destined to live shorter 
lives unless we change our food supply and production system. Please 
support this bill and make the change we need desperately for our 
health and the future wellbeing of this country. Thank you.

Kevin.
                                 ______
                                 
                         Comment of Rachel Volk
    Date Submitted: Wednesday, May 09, 2012, 9:57 a.m.
    City, State: Marlborough, MA
    Occupation: Holistic Health Coach
    Comment: Please support this crucial farm bill--we have a right to 
healthy, organic and local foods at an affordable price!
    Every day I work with sick, middle-class people who struggle 
because they can't afford to eat well. Stop backing big-Agro and 
support the right movement-- real food! Our future depends on this 
bill. Kids are destined to live shorter lives unless we change our food 
supply and production system. Please support this bill and make the 
change we need desperately for our health and the future wellbeing of 
this country. Thank you.

Rachel.
                                 ______
                                 
                        Comment of Molly Volker
    Date Submitted: Friday, May 18, 2012, 1:22 p.m.
    City, State: St. Cloud, MN
    Occupation: Teacher and Business Consultant
    Comment: Cancer, severe allergies, autism, extreme asthma, and many 
many more. The links are many to our food system. Fear not that we will 
not be able to feed the world. Fear that we are poisoning ourselves . . 
. we are. Heavily subsidize organic, sustainable practices and you will 
see the spending in Medicaid and Medicare go down. Please do it for our 
children and the future. This path we are on is hurting us. So Stop!
                                 ______
                                 
                    Comment of Pamela Rose Vollinger
    Date Submitted: Saturday, May 19, 2012, 10:06 p.m.
    City, State: East Hartford, CT
    Occupation: Clergy
    Comment: Dear Elected Officials,

    I am writing to express my deep concern for the quality of food 
that is produced here in the United States and how the land, a critical 
natural resource is used. I firmly believe that we need to have food 
that is grown locally with heritage seeds not contaminated by chemicals 
or non-genetically modified crops. I have seen so much evidence to 
support small local farmers using sustainable farming practices produce 
the healthiest food and are protecting our land and water resources for 
future generations. I feel it is my right as a citizen of this country 
to have the freedom to buy food which I feel is healthiest for my 
family and for the land. In order to protect my rights as a citizen and 
a consumer and the rights and health and future generations of citizens 
and consumers, I strongly recommend and give full endorsement of all 
provisions of the Local Foods, Farms and Jobs Act (H.R. 3286). I think 
it is in the best interest of the common good and future generations 
that you fully fund conservation programs such as the Conservation 
Stewardship Program, and making sure that enrollment in any new 
insurance subsidies are tied directly to compliance with conservation 
programs. I also feel it is the right and best thing to implement all 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236). It is essential for our freedom to choose what we feel is the 
healthiest food for our families and our right as consumers to have a 
choice that you maintain the EQIP Organic Initiative.

Pamela Rose Vollinger,
[Redacted],
Fishers Island, NY, and
[Redacted],
East Hartford, CT.
                                 ______
                                 
                         Comment of Max Vollmer
    Date Submitted: Friday, May 18, 2012, 2:21 p.m.
    City, State: Baker City, OR
    Occupation: Retired Banker
    Comment: American corporate agribusiness is a bloated pig on 
needless and excessive farm subsidies, and it is putting unhealthy, 
adulterated food on American tables that is responsible for the 
obesity, diabetes, and heart disease plaguing this country.
                                 ______
                                 
                      Comment of Carol von Borstel
    Date Submitted: Friday, May 18, 2012, 5:54 p.m.
    City, State: Sequim, WA
    Occupation: Retired Teacher
    Comment: A farm bill needs to represent the needs of the people of 
this country, not the desires of corporate agriculture. We want food 
and land use policies that promote our health and the health of our 
environment. Small and organic farms need the support to grow the food 
we choose to eat.
                                 ______
                                 
                     Comment of Rebecca von Duering
    Date Submitted: Friday, May 18, 2012, 4:44 p.m.
    City, State: Seattle, WA
    Occupation: Speech Pathologist
    Comment: I believe that non-GMO agricultural products are crucial 
to the health of our nation and the health of our economy. Europe does 
not want GMO's and because nature is nature (and can't be contained) we 
have no way to protect our non-GMO crops from being pollinated by GMO 
crop. We must not let GMO's infiltrate our foods.
                                 ______
                                 
                        Comment of Melany Vorass
    Date Submitted: Saturday, May 19, 2012, 10:56 a.m.
    City, State: Seattle, WA
    Occupation: Writer/Urban Farmer
    Comment: Dear Representative McDermott,

    Our children need access to healthy, affordable food. The current 
farm bill is heavily weighted toward subsidizing large, conventional 
(versus organic) farms.
    Providing cheap, unhealthy food (such as GMO corn and soy) grown in 
pesticides and nutrition depleted soils are creating a nation of sick, 
obese, dysfunctional, lower IQ people.
    If we are serious about improving our health care system and 
lowering health care cost, we need to start at the root cause of our 
problems: unhealthy food.
    Farm subsidies should be weighted toward producers that are 
producing healthy foods, not just empty calories that can be 
manipulated in a lab. Currently, very little assistance goes to small, 
organic farms. We should be providing incentives for large, industrial 
farms to carry out organic growing principles.
    Please consider this carefully as Congress recrafts the farm bill.
            Sincerely,

Melany Vorass.
                                 ______
                                 
                      Comment of Laszlo Vorosmarty
    Date Submitted: Saturday, May 19, 2012, 1:36 p.m.
    City, State: Glens Falls, NY
    Occupation: Congressional Advocate
    Comment: It is unfortunate to see that the government has again 
failed to utilize its urban and rural resources and schools for 
developing agricultural related job programs that would feed, educated 
and employ its people. The tax money would be better well spent if it 
were utilized on behalf of supporting the people's consumption of 
fresh, healthy and nutritious fruits and vegetables within a 100 mile 
radius of any school where ever they live. Whereupon, throughout the 
year, a number of sustainable urban and rural agricultural jobs could 
be supported within every 100 mile radious of this endeavor. 
Visualizing the schools of every community as base of operations. In 
observing the need for this in my community I am ``Doing Business As 
American Resources Recovery Congress'' in an attempt to enjoin the 
schools, government, enterprise and labor of my community to this 
purpose.
    However, for lack of funding, this program has not become available 
to my community: Even though so much needs to be done.
                                 ______
                                 
                         Comment of Carol Voss
    Date Submitted: Sunday, May 20, 2012, 8:47 a.m.
    City, State: Hibbing, MN
    Occupation: Executive Director for Hibbing Food Shelf
    Comment: I am an Executive Director for the Hibbing Food Shelf. I 
don't need SNAP program to go down, or any other program for low income 
families.
                                 ______
                                 
              Comment of Adriana Voss-Andreae, M.D., Ph.D.
    Date Submitted: Tuesday, May 15, 2012, 8:48 p.m.
    City, State: Portland, OR
    Occupation: Healthy Foods Access for Low-Income Families
    Comment: The drastic cut of nearly $36 billion from Federal 
nutrition programs, at a time where a growing population of low-income 
families heavily rely on these programs to feed their families while 
attempting to find living wage jobs, is simply outrageous and 
unacceptable. Additionally, with global energy prices continuing to 
rise and looming climate change, we urgently need to invest in 
community food security through funding of our local food systems, such 
as funding of Farmers Market and Local Food Promotion Program, Hunger-
Free Community Incentive Grants, and Community Food Projects Programs.
    For these and other reasons, I urge the House Agriculture Committee 
to eliminate the Federal nutrition program cuts and add the Food and 
Jobs Act to their bill.
            Sincerely,

Adriana Voss-Andreae, M.D., Ph.D.
                                 ______
                                 
                        Comment of Janice Vranka
    Date Submitted: Friday, May 11, 2012, 5:32 p.m.
    City, State: Portland, OR
    Occupation: Research Scientist
    Comment: American needs a farm bill that makes healthy food widely 
available to all Americans. This is especially important for our school 
children! Studies have shown that the obesity epidemic may be directly 
tied to malnutrition and the inability of many Americans to find 
nutritional foods.
    Please take a strong stand on this issue. We need a better 2012 
Food and farm bill!
            Thank you for your consideration,

Janice Vranka.
                                 ______
                                 
                       Comment of Caroline Vrazel
    Date Submitted: Thursday, April 26, 2012, 12:26 p.m.
    City, State: Wisconsin Rapids, WI
    Occupation: Homemaker
    Comment: Please consider what this will do to our hardworking 
farming families. We need to consider legislation that will support 
them not squash their ability to make a living and support their 
families. We are trusting you to represent Every American, not 
corporate greed.
                                 ______
                                 
                      Comment of Kelly Vresilovic
    Date Submitted: Sunday, May 20, 2012, 11:24 a.m.
    City, State: Ardmore, PA
    Occupation: Architect
    Comment: I buy organic food and believe it is better for our 
environment. I want to make sure that we have clean air and water for 
everyone not just the wealthy. Clean strong farms are the backbone of a 
clean strong America.
    Thank you for all you do.
                                 ______
                                 
                         Comment of Marilyn W.
    Date Submitted: Friday, April 20, 2012, 1:09 a.m.
    City, State: Dumas, AR
    Occupation: Bank Teller
    Comment: While I am not currently working in agriculture our family 
has been farming. I am Very Concerned about the current methods of 
constant usage of chemicals applied to our crops. It is slowly and 
steadily and stealthily killing our environment and us. Cancer is 
rampant. Bees are dying. Rivers and lands are polluted. All Organic 
farming is Desperately Needed!
    Farmers need to be kept in the fields. What will it take? Fuel 
prices are eating the profits. Chemicals are sickening and killing 
whatever they come into contact with.
    You are in a position to change the scene. Please take action Now!
                                 ______
                                 
                          Comment of Trisha W.
    Date Submitted: Friday, May 18, 2012, 2:04 p.m.
    City, State: Kankakee, IL
    Occupation: Homemaker
    Comment: I would like the farm bill to support small local farmers, 
not big agriculture. I want the farm bill to focus on encouraging and 
supporting organic and sustainable farming practices. I want it to 
encourage labeling of genetically modified foods, antibiotic usage, 
feeding practices, pesticides used, and other unhealthy additives, so 
that people can finally know what they are truly buying at the store. I 
want the farm bill to encourage good nutrition for school children and 
poor families using WIC and food stamps. There needs to be healthy food 
provided to these people. Not pink slime beef, pesticide covered fruits 
and vegetables, or worse yet, lack of fruits and vegetables. Let's 
start focusing on supporting family farms, creating healthy foods and 
animals, healthy farms and land, transparency in labeling, and good 
nutrition for all.
                                 ______
                                 
                        Comment of Frances Wade
    Date Submitted: Saturday, May 19, 2012, 2:45 p.m.
    City, State: Bigfork, MT
    Occupation: P/T Desk Clerk/Disabled
    Comment: I belong to a CSA where I am able to access organic fruits 
and vegetables in season. I am not willing to eat the toxic products 
supplied by the majority of the corporate agribusiness and sold in most 
commercial groceries.
    Most Americans would prefer to have access to wholesome foods that 
are neither GMO's nor contaminated by toxic chemical fertilizers or 
pesticides. Why do you refuse to protect the people from the 
corporations who put profit above public safety?
                                 ______
                                 
                         Comment of Nancy Wade
    Date Submitted: Saturday, May 19, 2012, 8:01 p.m.
    City, State: Chicago, IL
    Occupation: Educator
    Comment: Our agricultural system must be reformed to put consumer 
and environmental safety at the top of the list of priorities. GMO food 
and the ownership of genes should not be allowed. There are no benefits 
to the consumer, only to the corporate owners of food supply.
                                 ______
                                 
                        Comment of Terry Wadkins
    Date Submitted: Saturday, May 19, 2012, 2:49 p.m.
    City, State: Jacksonville, FL
    Occupation: Self-Employed
    Comment: The people you represent don't want huge monoculture 
agribusinesses to be our source of food, as much as we want you to 
support and encourage smaller sustainable farmers. Better quality 
produce. Better for the environment.
                                 ______
                                 
                        Comment of James Waggle
    Date Submitted: Monday, May 07, 2012, 6:01 p.m.
    City, State: Ward, AR
    Occupation: Nurse
    Comment: I strongly suggest to eliminate All subsidies. Farmers 
don't need entitlements from the U.S. Government to be productive these 
days. Let them bear the burden like all other Americans, if you pick 
that career field than you learn how to be productive in it and be 
financial responsible for your choices. All other career fields don't 
get government hand outs we just had to work longer hours. I suggest 
let Farmers become more responsible for their choices and stop handing 
out Free money to them. I mean if I know I can plant a crop knowing 
it's going to fail but I'm going to get paid for it twice the price 
it's worth who wouldn't care about being responsible. The farmers 
collect insurance off the failed crop then collect anywhere between 
$50,000 to $1 million every year in March/April in government 
subsidies.
                                 ______
                                 
                       Comment of Deborah Wagner
    Date Submitted: Saturday, May 19, 2012, 6:57 a.m.
    City, State: Brookeville, MD
    Producer/Non-producer: Producer
    Type: Fruits, Livestock, Poultry/poultry products, Vegetables, 
Other
    Size: Less than 50 acres
    Comment: Dear Committee Members: Please consider eliminating all 
subsidies to corporate farms, which are one of the leading causes of 
the loss of small family farms and a leading cause of soil erosion and 
loss of diversity through huge unsustainable monocropping. We need to 
improve subsidies to forest retention and other conservation programs, 
and encourage more young people to go into farming. Only consider 
government programs and payments to farms on which the owner does at 
least 51% of the actual physical work of the farm.
                                 ______
                                 
                         Comment of Mark Wagner
    Date Submitted: Friday, May 18, 2012, 11:37 p.m.
    City, State: Royal Oak, MI
    Occupation: Engineer
    Comment: End genetically modified organisms or at least inform 
consumers of all haphazard and require proper labeling of products 
containing GMOs.
    Define what is considered ``natural'' and it should not include 
corn syrup, canola oil, GMO products, trans fats or other synthetic 
products. Foods should be labeled accordingly.
    Tariffs on imported sugar should be eliminated so that it is no 
longer more expensive than corn syrup. This would provide tremendous 
improvement to our diabetes and obesity epidemics.
    Outlaw trans fats.
    Outlaw addictive food additives and additives that make consumers 
feel hungrier.
                                 ______
                                 
                       Comment of Michael Wagner
    Date Submitted: Saturday, May 12, 2012, 3:18 p.m.
    City, State: Carbondale, IL
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: I urge you to pass a strong farm bill that;

    (1) protects programs like SNAP, TEFAP, and CSFP.

    (2) Promotes local food production, processing and marketing.

    (3) Promotes local bio-energy production from waste streams.

    (4) Victory (community) gardens where everyone has an opportunity 
        and responsibility to get their hands dirty.
                                 ______
                                 
                        Comment of Robyn Wagoner
    Date Submitted: Friday, May 18, 2012, 1:39 p.m.
    City, State: Olympia, WA
    Occupation: Business Owner
    Comment: Only Sustainable Healthy processes should be used to grow 
food: i.e., Organic. Safe food and water for children and adults 
require a halt to the use of chemical fertilizers, genetic 
modification, pesticides, herbicides and fungicides in our food chain. 
Cancer, DNA mutations, pollution, as-yet-unknown-side-effects, none of 
these are acceptable risks, even in 1:1,000,000 cases. Food is meant to 
nourish us, not poison us. If it is poisoning people, and ecosystems, 
it is not food, it is poison. We cannot continue to sicken our 
children, families, and environment.
    Factory farms produce too much methane and are destroying the ozone 
layer creating global warming. We have known about this since the 
1970's. End factory farms.
    Livestock take up 50% of our country's landmass and use 50% of our 
drinkable water. This is unacceptable. We must limit the amount of 
resources allotted to raising nitrogen polluting livestock, starting 
with removing government subsidized and privately owned grazing animals 
from All public lands. The wild animals that live there need that area 
to nest and forage. Tell ranchers to keep their cows on their own 
property like everyone else must do with their animals in this country.
    If genetically modified substances continue to be marketed as 
``food'' they Must be labeled as such, preferably with a warning that 
the long-term side effects of consuming such substances are unknown!
    We seriously need more stringent screenings for Mad Cow Disease.
    Thank you for your time.
                                 ______
                                 
                        Comment of David Wahler
    Date Submitted: Friday, May 18, 2012, 12:23 p.m.
    City, State: Wolcott, VT
    Occupation: Retired
    Comment: I live in a small dynamic state with inventive young 
farmers who are actively growing for their neighbors and in some cases 
as they grow they are able to hire people, providing jobs and food and 
shipping healthy food to nearby states. Funding should be provided for 
these farms over the support of the huge agro growers who have little 
regard in for our environment, they are bottom line big business in 
many cases.
                                 ______
                                 
                         Comment of Diane Walas
    Date Submitted: Thursday, May 10, 2012, 6:18 p.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: I support the Community Food Bank of Southern AZ by 
volunteering and making food and cash donations. Arizona has been very 
hard hit with persons losing homes to foreclosure and the number of 
persons seeking food assistance has greatly increased, making our food 
bank have more and more difficulty meeting the increased needs. I would 
like a strong farm bill to help these needy families. It is difficult 
to watch parents struggling to keep themselves and their children 
healthy on smaller and smaller incomes. I hope and pray that you pass a 
farm bill that will protect and strengthen programs like SNAP, TEFAP 
and CSFP. Our community and many communities throughout America cannot 
afford cuts to these programs. It is hard to watch heads of 
corporations live in multiple dwellings and earn more and more perks 
when young families cannot afford basic nutrition and have lost their 
homes.
                                 ______
                                 
                       Comment of Karen Waldecker
    Date Submitted: Tuesday, April 24, 2012, 11:01 a.m.
    City, State: Kirkwood, MO
    Occupation: Disabled
    Comment: As a person of a very low income, I pray you don't cut 
funding for hungry people. I am a diabetic and I can't afford to eat 
properly so my blood sugar is always a rollercoaster. I'm a widow who 
had to move in with my son to save enough m money to get an apartment. 
That's just not right!
                                 ______
                                 
                       Comment of Matthew Waldorf
    Date Submitted: Saturday, May 19, 2012, 6:43 a.m.
    City, State: Darien, IL
    Occupation: Sales Executive
    Comment: It is time that the truth is being told. We must label 
GMO'S and be very clear with the public how horrible high fructose corn 
syrup is to our children and how it is a main cause of our obesity 
problem in this country. No more government corn subsidies!
                                 ______
                                 
                       Comment of Charlotte Wales
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Monticello, AR
    Occupation: Community Development
    Comment: As a gardener myself, I urge you to focus on Clean, Fresh 
Foods Instead Of Corporate Agri which is laden with toxic chemicals and 
fertilizers. We The People do Not want the dangers to our health and 
the environment caused by agri chemicals and pesticides; they are a 
danger to us and especially to our children. I wish All Of You On The 
House Committee On Agriculture To Focus On Clean Food Instead Of 
Listening To The Corporate Agri Giants Whose Only Concern Is Their 
Obscene Profits, Not The Health Of Our Families Or Our Planet.
                                 ______
                                 
                        Comment of Jamie Walker
    Date Submitted: Sunday, May 20, 2012, 10:16 a.m.
    City, State: Garden City, MI
    Occupation: Disabled
    Comment: My disability is directly related to the corporate, 
pharmaceutical foods this country forces upon us, that is nutrient and 
vitamin lacking, and an assault on our bodies.
    We need natural, pesticide/herbicide, and GMO-free foods that 
nourish our bodies instead.
                                 ______
                                 
                        Comment of Jenny Walker
    Date Submitted: Saturday, May 19, 2012, 11:16 p.m.
    City, State: New York, NY
    Occupation: Physician/Educator
    Comment: As a Family Physician, I am very aware of the importance 
of access to healthy food to preserve health and prevent illness. The 
model Big Agriculture with tons of pesticides, excessive use of 
antibiotics, untested genetically engineered products and factory-
farmed animals has not proven in the best interests of our health or 
environment. New Farm legislation needs to emphasize small, sustainable 
farming, especially local and organic. It needs to limit use of 
antibiotics to only the amount needed to treat infected animals (to 
slow down antibiotic resistance) and pesticides to reduce destruction 
of the environment (remember bumble bees?) It also needs to acknowledge 
the importance and value of diversified gene lines and to ban 
additional genetically modified organisms until their safety can be 
established and they can be shown to grow without contaminating 
traditional plants, especially organic.
                                 ______
                                 
                         Comment of Joan Walker
    Date Submitted: Sunday, May 20, 2012, 9:45 p.m.
    City, State: Lincoln, MA
    Occupation: Educator
    Comment: I am interested in supporting small, local, organic farms. 
I do my best to avoid eating anything that is not organic and when 
possible try to buy local or grow my own.
                                 ______
                                 
                         Comment of Lee Walker
    Date Submitted: Friday, May 18, 2012, 3:13 p.m.
    City, State: Salt Lake City, UT
    Occupation: Lawyer
    Comment: I support the Food Democracy positions. For the sake of 
individual farmers and the wholesomeness of the food we all get, Big Ag 
has gone too far. End the corn supports, the policies that lead to 
monopoly, massive overcrowding, filth, cruelty and need to over-use 
antibiotics. I am also alarmed at the over use of chemicals in 
agriculture and genetic modification of our food.
                                 ______
                                 
                       Comment of Margaret Walker
    Date Submitted: Saturday, May 19, 2012, 10:33 p.m.
    City, State: Panama City, FL
    Occupation: Retired Editor
    Comment: I want a farm bill that provides opportunities to small 
farmers, especially organic farmers. I want the corporate farmers to be 
curtailed. I want genetic modification to be stopped. I want herbicides 
and pesticides to be curtailed, in some cases outlawed (e.g., Roundup). 
I want provisions for bees to be allowed to eat their own products and 
not be fed sugar water instead. I want an end to monocrop mania. I 
could go on.
                                 ______
                                 
                        Comment of Medoh Walker
    Date Submitted: Friday, May 18, 2012, 2:31 p.m.
    City, State: Free Union, VA
    Occupation: Community Organizer
    Comment: The safety of the nutritional quality and healthfulness of 
the food made available to Americans is an inalienable right just as 
life itself. Our health and our lives depend on it. This is no place 
for corporate greed and control sacrificing our nutrition.
                                 ______
                                 
                        Comment of Maureen Wall
    Date Submitted: Friday, May 18, 2012, 12:15 p.m.
    City, State: Port Angeles, WA
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: I am convinced that you all know nothing about plants, 
animals, soil or how they interact. Please keep the biodiversity of our 
planet strong. Leave farming to people who know how to do it. Keep your 
multinational food companies out of small farms. Try, one time, to not 
have big agriculture as your primary focus.
                                 ______
                                 
                         Comment of Bob Wallace
    Date Submitted: Friday, May 18, 2012, 11:06 p.m.
    City, State: Fort Worth, TX
    Occupation: Retired
    Comment: A Fair farm bill for the consumer (everyone) means:

  <bullet> Better choices from a more vibrant marketplace and stable 
        prices. Restoring common-sense practices like agricultural 
        reserves can prevent speculation from driving up food prices.

  <bullet> Increased access to healthy food: More families will have 
        easy access to healthy foods they can afford.

  <bullet> Stronger local infrastructure: Reversing the consolidation 
        in the food system would allow for more local businesses.
                                 ______
                                 
               Joint Comment of Brigitte and John Wallace
    Date Submitted: Saturday, May 19, 2012, 7:36 a.m.
    City, State: Gulfport, FL
    Occupation: Self-Employed
    Comment: For the health of Americans, for the welfare of the 
animals, for the economic viability of the small farms, for the 
environment and because we must stand against big Agra, we want 
sustainable organic and humane farming.
                                 ______
                                 
                        Comment of Garry Wallace
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Charlottesville, VA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Our current big business ag system is broken. Local 
producers offer the best chance for healthy food. Big ag $$$$ should 
not be your driving interest in our health decisions.
                                 ______
                                 
                        Comment of James Wallace
    Date Submitted: Friday, May 18, 2012, 9:26 p.m.
    City, State: Benicia, CA
    Producer/Non-producer: Producer
    Type: Livestock, Field Crops
    Size: 1,000+ acres
    Comment: I am very concerned that the Food and Agricultural bills 
that favor farmers in crop production, distribution and support family 
farms are those that my representative and other representatives 
support. It is critical not to allow these bills to languish in 
committee or be killed by inaction. Thank you.
                                 ______
                                 
                      Comment of Margaret Wallace
    Date Submitted: Friday, May 18, 2012, 1:25 p.m.
    City, State: Watsonville, CA
    Occupation: Retired
    Comment: Still need subsidies for small farmers; protect organic 
growers from GMO's, pesticides and other like dangers from Monsanto, 
Dow Chemical, Bayer and other chemical companies. Stop Monsanto from 
`owning' all seed crops and ruining food crops with their genetic 
modifications.
                                 ______
                                 
                        Comment of Ryan Wallace
    Date Submitted: Friday, May 18, 2012, 1:23 p.m.
    City, State: Denver, CO
    Occupation: Business Manager
    Comment: Subsidize Real Food! Lower the National Debt by 
Subsidizing food that makes us healthier and lowers the burdens our 
health problems put on the healthcare system. Create jobs and Subsidize 
Family Farmers that grow real food.
                                 ______
                                 
                       Comment of Sondra Wallace
    Date Submitted: Friday, May 11, 2012, 10:42 a.m.
    City, State: Ogden, UT
    Occupation: Retired
    Comment: In addition, support for organic food is necessary to 
provide healthy food in order to lower disease. Support is needed to 
reduce the price of decent food, i.e., organic, so everyone can afford 
it.
                                 ______
                                 
                        Comment of Annie Wallack
    Date Submitted: Friday, May 18, 2012, 1:27 p.m.
    City, State: Rosamond, CA
    Occupation: Retired Teacher
    Comment: Please! Let's be sensible here. We are asking for the 
betterment of humanity's health In the name of an improved nation of 
healthy individuals. We ask that you advocate on Our behalf and not 
that of greedy corporations who do not have the best interests of 
humanity at heart.
                                 ______
                                 
                        Comment of Kathy Waller
    Date Submitted: Friday, May 18, 2012, 10:07 p.m.
    City, State: Austin, TX
    Occupation: Writer
    Comment: My father was a small farmer and rancher. He produced 
clean food, and he loved the land. He would be appalled to see what 
corporate agribusiness is doing to our food supply and our farmland.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you for your attention.
                                 ______
                                 
                       Comment of Nicholas Wallin
    Date Submitted: Friday, May 18, 2012, 12:40 p.m.
    City, State: Minneapolis, MN
    Occupation: Architect
    Comment: Stop contributing to big Agriculture companies, and find 
better ways to provide healthy, safe foods for everyone at every income 
level. Currently, eating healthy is luxury.
                                 ______
                                 
                        Comment of Hunter Wallof
    Date Submitted: Friday, May 11, 2012, 10:47 a.m.
    City, State: Pt. Reyes, CA
    Occupation: Artist/Ecologist
    Comment: We want corporations out of the production of the produce 
we feed our families. Move the cows off the land and the people back 
onto it as land-stewards and providers of the food we eat.
                                 ______
                                 
                         Comment of Judy Walls
    Date Submitted: Friday, May 18, 2012, 10:30 a.m.
    City, State: Fairfield, IA
    Occupation: Accounting Assistant
    Comment: I am really tired of supporting Huge corporate AG 
businesses who (much to some peoples thinking) Do Not Do The Right 
Thing. But, I guess they have the money to lobby Congress into Not 
Doing The Right Thing Either. Can you please try to think about all the 
rest of us, we need to have a voice and I am hoping it is thru you, the 
person I voted for.
                                 ______
                                 
                         Comment of Karen Walls
    Date Submitted: Friday, May 18, 2012, 3:04 p.m.
    City, State: Novato, CA
    Occupation: Business Manager at Independent School
    Comment: I hope that the farm bill finally stops subsidizing the 
huge agribusiness farms and instead supports small organic farms. 
Subsidizing corn and soy to the point where they are put into 
everything and animals are fed corn when they should be fed grasses is 
wreaking havoc on people and animals alike.
                                 ______
                                 
                        Comment of Dora Walmsley
    Date Submitted: Thursday, April 19, 2012, 10:40 a.m.
    City, State: Pittsburgh, PA
    Occupation: Volunteer Coordinator
    Comment: As an employee for a private not-for-profit organization, 
I see, every day, the impact programs like CSFP, SNAP and TEFAP have on 
the lives of western Pennsylvanians. I'm doing my part in helping those 
in need in my community. I need my government to do the same by keeping 
these critical feeding programs.
                                 ______
                                 
                       Comment of Caitilin Walsh
    Date Submitted: Friday, May 18, 2012, 1:59 p.m.
    City, State: Redmond, WA
    Occupation: Translator
    Comment: I would like to add my name to the many citizens who would 
like to see the playing field for real food producers (otherwise known 
as farmers) leveled, by ending subsidies for commodity crops. We don't 
eat commodities: they are profit instruments for the powerful 
corporations that control them. If you (or rather we the taxpayers) are 
going to subsidize anything, Let it be those who are doing the right 
things in terms of healing the planet with sustainable farming 
practices, reducing carbon emissions and dependence on foreign oil 
(thus working toward national security) by growing and selling locally.
                                 ______
                                 
                Comment of Sister Julia Walsh, F.S.P.A.
    Date Submitted: Friday, May 18, 2012, 12:04 p.m.
    City, State: Chicago, IL
    Occupation: Teacher
    Comment: Hello!
    Thanks for your desire to represent us as you decide how to craft 
the Food Bill.
    It is really important to me that the final version you come up 
with is very supportive of independent, organic, local and sustainable 
farms who are caring for the natural resources (of soil, air, water, 
etc.) and workers properly. It is also very important to me that you 
create systems to support new sustainable agriculture, especially in 
ares where food is scarce in the U.S. and abroad. Food Aid needs to be 
sustainable and encourage development of communities. Give a boost to 
those who need it, please, but try not to give hand-outs in a larger 
system where it is too difficult to compete with corporate agriculture!
    In particular, I support the following:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you!
            Peace and All Good,

Sister Julia Walsh, F.S.P.A.
                                 ______
                                 
                         Comment of Mary Walsh
    Date Submitted: Friday, May 18, 2012, 12:49 p.m.
    City, State: Lakewood, OH
    Occupation: Media Producer/Director
    Comment: Please stop listening to lobbyists. The state of food 
production in this country is profitable and bountiful--now. What it 
isn't is sustainable or healthy. Put the needs of the people first, and 
make sure family farms and sustainable agriculture are supported. The 
Big Ag companies have enough money--they don't need government money 
too.
                                 ______
                                 
                      Comment of Betty Lou Walsman
    Date Submitted: Saturday, May 19, 2012, 7:51 a.m.
    City, State: Indianapolis, IN
    Occupation: Retired
    Comment: Need support for small farmers, organic farmers, non-GMO 
producers. Stop subsidies for huge farming agribusinesses and crop 
insurance for marginal lands.
    We Need Reform that benefits the people of the U.S. and not the 
large corporations with their lobbyists.
                                 ______
                                 
                        Comment of Marie Walters
    Date Submitted: Saturday, May 19, 2012, 2:39 a.m.
    City, State: Oak Grove, OR
    Occupation: Financial Services
    Comment: Do not cut funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture. These 
are too vital to the health of our population!
                                 ______
                                 
                         Comment of Pat Waltke
    Date Submitted: Monday, March 19, 2012, 4:09 p.m.
    City, State: Fort Wayne, IN
    Occupation: Retired Homemaker
    Comment: Something has to be done to prevent hunger in our nation. 
If children & adults do not have food to live, what else is there for 
them? Their children cannot study in school and parents are unable to 
give their family proper nutrition. I don't know what the answer is, 
but there is a lot of money wasted in our government. Thank you.
                                 ______
                                 
                         Comment of Jon Walton
    Date Submitted: Tuesday, March 20, 2012, 11:02 p.m.
    City, State: Friendsville, TN
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock, Other
    Size: 151-300 acres
    Comment: Crop insurance needs to be changed to address the issue of 
yield switching fraud between farm numbers. Producers participating in 
this type of fraud are using the names of multiple family members on 
leases from different farm numbers to show losses and receive 
indemnities while building yield history on other farm numbers. This 
fraud creates a distinct disadvantage for producers who report yields 
accurately.
                                 ______
                                 
                        Comment of Gary Walvatne
    Date Submitted: Wednesday, May 16, 2012, 1:11 a.m.
    City, State: West Linn, OR
    Occupation: Hydrogeologist
    Comment: I support the Supplemental Nutrition Assistance Program 
(SNAP) and The Emergency Food Assistance Program (TEFAP). Please 
continue to include SNAP and TEFAP in future farm policy and the next 
farm bill.
            Thank you,

Gary Walvatne.
                                 ______
                                 
                         Comment of Lisa Walzem
    Date Submitted: Friday, May 18, 2012, 5:14 p.m.
    City, State: Fresno, CA
    Occupation: Office Manager
    Comment: As a mother, wife and longtime citizen of Central 
California, one of the most fertile and productive farming areas in the 
country, I believe we have to change the way we are doing things. We 
have to make a stand against the large corporate farms and companies 
that supply them. Large scale farming operations based on chemicals and 
genetically modified crops are not sustainable and in the long run are 
doing more harm than good to our environment and economy. We need to 
follow the lead of the majority of developed nations and ban GMOs and 
embrace organic farming methods. I endorse the following:

    1. The full endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. The implementation of all provisions of the Beginning Farmer and 
        Rancher Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                         Comments of Ruby Wang
    Date Submitted: Friday, May 18, 2012, 6:56 p.m.
    City, State: Ellicott City, MD
    Occupation: Teacher
    Comment: We need to support organic farming, which is more friendly 
to our environment, consequently better for our health. While the 
current bill is always in favor of factory farming, which is number one 
cause of pollution and global warming, we should limit its practice, 
should not support it.
    Date Submitted: Sunday, May 20, 2012, 1:49 p.m.
    Comment: Please help organic farming, not factory farming. Organic 
farming can absorb 40% of green house gas, whereas factory farming is 
one of the major contributor to global warming. Please help!
                                 ______
                                 
                         Comment of Albert Ward
    Date Submitted: Thursday, May 17, 2012, 12:47 p.m.
    City, State: Las Vegas, NV
    Occupation: Graphic Designer/Gardener
    Comment: Please allow more subsidies for local and organic farmers. 
We do not want more monopolies on our food (seed). Less money spent on 
chemicals will also help the environment and our health.
                                 ______
                                 
                         Comment of Linda Ward
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Cottonwood, AZ
    Occupation: Medical
    Comment: I have an autoimmune disease and many food allergies and 
chemical sensitivities. I only eat organic vegetables. It is important 
that I know what I am eating so I don't suffer reactions. So many 
commercialized produce have chemical pesticides, so I stay away from 
the produce area of regular grocery stores.
                                 ______
                                 
                         Comment of Terri Ward
    Date Submitted: Friday, May 18, 2012, 3:43 p.m.
    City, State: Tualatin, OR
    Occupation: CPA
    Comment: I am writing to let you know that I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

  <bullet> GMO Labeling

    I do not support farm subsidies for any GMO crops and the new 
proposed subsidized insurance program is full of opportunities for 
fraud and abuse. These wasteful entitlement programs need to stop.
    Our system is broken and the first thing that should happen to fix 
it is to stop the revolving door between industry and the USDA. No 
former industry executives should be hired in official positions. 
Officials need to be objective and independent. The Iron Triangle and 
the revolving door are rife with corruption. You need only look at 
other industries such as finance and accounting to understand that 
objectivity and independence can and should be the standard.
    The health of U.S. citizens is at risk and giant agri-corps 
contribute significantly to the problem. We need to fund organic 
research and support organic farmers as well as educate the public 
about the risks chemicals and pesticides pose to our health and the 
environment. There is plenty of good science out there to prove my 
point if you look outside the studies funded by industry.
    Please act to save our health, soil and environment.
                                 ______
                                 
                       Comment of Gerard Wardell
    Date Submitted: Friday, May 18, 2012, 2:14 p.m.
    City, State: Great Falls, VA
    Occupation: Regulatory Consultant
    Comment: As a regular consumer of Organic Produce, I think it is 
about time the USA got serious about protecting organic farmers and 
their families. Factory farms feed a lot more people but that does not 
mean they should determine All Agricultural Policies of the U.S. I urge 
you to seriously consider re-writing the next farm bill to make it more 
friendly to the organic industry so all citizens of the U.S. have a 
choice.
                                 ______
                                 
                        Comment of Nicholas Ware
    Date Submitted: Friday, May 18, 2012, 3:50 p.m.
    City, State: Los Angeles, CA
    Occupation: Materials Engineering Student
    Comment: We are, literally, what we eat and I want my country to 
represent the value of true food and upward mobility. We each as an 
individual have the responsibility to step toward this goal or ignore 
it. Please, help this country grow in a way that will sustain us as a 
people.
    Thank you.
                                 ______
                                 
                       Comment of Jason Warfield
    Date Submitted: Tuesday, March 20, 2012, 10:11 a.m.
    City, State: Abilene, TX
    Occupation: Researcher
    Comment: Anything which deals with carbon credits should be struck 
from the bill. Also all GMO needs to be labeled and all side effects 
listed. GMO has been proven very dangerous and should not even be in 
the market. Also, raw milk and real organic farms, and individual 
gardens should be highlighted and re-enforced as legal for producing, 
sale to the public, and consumption.
                                 ______
                                 
                    Comment of Dr. Carole A. Warner
    Date Submitted: Friday, May 18, 2012, 2:46 p.m.
    City, State: Portland, OR
    Occupation: Physician
    Comment: As a Naturopathic physician, I see the people who are the 
dietary and nutritional ``canaries in the coal mine;'' those who have 
strong negative impacts to their health as a consequence of their 
exposure to GMO produce and the resultant high levels of pesticides and 
herbicides used on them. In addition, these foods have inferior levels 
of nutrition because the soils have been so seriously depleted of 
minerals and the microflora that works with plants roots 
synergistically to extract nutrients from the soil have been wiped out 
and pathological strains have replaced them. I see patients with 
obesity and the range of serious chronic illnesses that result from 
consuming food that is truly toxic to health yet is the vast majority 
of ``food'' being produced by our farming practices in this country. 
This is making ill and killing literally millions of Americans every 
year, yet we have yet to reform our nation's agricultural practices to 
address this incredibly serious issue. We have probably spent trillions 
of dollars and been at war for 10 years as a result of an attack that 
destroyed two buildings and killed a few thousand people, yet we sit 
back and so nothing of substance to address the horrible state of 
health and deaths of millions of Americans every year! This is either a 
tragic oversight on the part of our elected officials or an unethical 
and outright treasonous derelict of duty on their part. Addressing this 
travesty rapidly and with real reform will better this nation on so 
many fronts. It will dramatically improve our nation's health, 
dramatically improve our land's health by implementing practices that 
don't degrade and pollute our soil and water, and as a byproduct be a 
huge financial boon to the country in the form of dramatically 
decreased healthcare costs, etc. Please, urgently take on real reform 
of our agricultural practices this year. Our nation's health depends on 
it.
            Sincerely,

Dr. Carole A. Warner.
                                 ______
                                 
                         Comment of Sara Warner
    Date Submitted: Friday, May 18, 2012, 5:00 p.m.
    City, State: Grand Ridge, FL
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 50-150 acres
    Comment: We need to promote health in our farms and products, not 
cater to lobbyists. If we don't pay more attention to a healthy 
environment and healthy production of food, we can never get the 
country out of the health care crisis.
                                 ______
                                 
                         Comment of Tim Warner
    Date Submitted: Friday, May 18, 2012, 10:41 a.m.
    City, State: Los Angeles, CA
    Occupation: TV Editor
    Comment: Americans want safe, healthy, whole foods. Agribusiness 
giants like Monsanto are using humans as guinea pigs in their 
genetically modified food experiment and I want no part of it. Please 
protect small farmers and consumers and stop cozying up to corruption 
and lies.
                                 ______
                                 
                     Comment of Sheree Warner Nyren
    Date Submitted: Friday, May 18, 2012, 10:57 p.m.
    City, State: Fairbanks, AK
    Occupation: Body Worker
    Comment: The health of America health of Americans, physically and 
mentally. Processed foods and modified food produced by big AG and 
corporations Do Not make healthy bodies or minds. An over-burdened 
health care system does not support a strong economic America and is 
bringing it down.
                                 ______
                                 
                         Comment of Bess Warren
    Date Submitted: Friday, May 18, 2012, 2:48 p.m.
    City, State: Germantown, TN
    Occupation: Mother
    Comment: I am very concerned about the direction farming is moving 
in the United States. I think we need to protect small farmers and 
support organic, traditional farming methods over chemically mass 
producing foods that make us ill.
                                 ______
                                 
                       Comments of Brandi Warren
    Date Submitted: Friday, March 16, 2012, 10:44 a.m.
    City, State: Brooks, KY
    Producer/Non-producer: Producer
    Type: Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: No more genetically modified foods without decades of 
research and data. No more factory farms! No more growth hormones and 
overused antibiotics.
    The people are demanding food that won't kill us! Farming methods 
that are sustainable. The world can be fed without buying one new seed 
every year. Cut ties with Monsanto and stop cow-toeing to them!
    Date Submitted: Thursday, May 17, 2012, 2:35 p.m.
    Comment: We need a better farm bill to put the future of our food 
into the hands of the people, not biotechnology labs. There are a 
plethora of fixes from guaranteeing funds for beginning farmer and 
rancher programs, ensuring the safety of our food--No GMO, and 
protecting the environment while feeding the world. These things can be 
done, but we must farm in a different way, not in factory barns and 
feedplots.
                                 ______
                                 
                        Comment of Penny Warren
    Date Submitted: Friday, May 18, 2012, 12:38 p.m.
    City, State: Annapolis, MD
    Occupation: Acupuncturist
    Comment: Our health is our most important resource, and it depends 
on the quality of our food. More research shows organically grown food 
provides far more nutritive value without the harmful toxic chemicals. 
We, as a nation, depend on the dedication of our organic farmers.
                                 ______
                                 
                        Comment of Peter Warren
    Date Submitted: Friday, May 18, 2012, 2:20 p.m.
    City, State: Ashland, OR
    Occupation: Software Developer
    Comment: As a voter, a sustainable, healthy, environmentally 
responsible food system is of foremost concern to me. We need to 
eliminate subsidies for farming practices that ultimately do more harm 
than good, and we need to encourage practices that invigorate and 
vitalize the planet, rather than deplete it.
                                 ______
                                 
                         Comment of Ruby Warren
    Date Submitted: Friday, May 18, 2012, 7:35 p.m.
    City, State: Asheville, NC
    Occupation: Grower of Perennial Food Crops
    Comment: We must change our way of growing food as it is making us 
ill, polluting our water, air and Earth. Remember Rachel Carson and 
take her message to heart!
                                 ______
                                 
                         Comment of Tomi Warren
    Date Submitted: Friday, May 18, 2012, 2:22 p.m.
    City, State: Ridgecrest, CA
    Occupation: Registered Nurse
    Comment: I find eating food that is organic or grown without 
pesticides make me feel better and increases my health. Please support 
this bill as it makes me a healthier person.
                                 ______
                                 
                       Comment of Nancy Warshawer
    Date Submitted: Saturday, May 19, 2012, 9:31 a.m.
    City, State: Tucson, AZ
    Occupation: Clinical Laboratory Scientist
    Comment: Healthy Farm Bill, Now!
    Want to save the U.S. billions (trillions?) of dollars? Fix the 
food system that subsidizes our current diet of ``foods'' (manufactured 
food-like substances!), that are making us fatter and increasing a host 
of diseases, And Our Health Care Costs! If we're going to subsidize, 
how about fresh fruits and vegetables?! Thanks for listening!
                                 ______
                                 
                       Comment of Thomas Washburn
    Date Submitted: Friday, May 18, 2012, 3:40 p.m.
    City, State: Fernandina Beach, FL
    Occupation: Public Health Physician
    Comment: As your constituent, I write to urge your votes for strong 
overhaul of the farm bill.
    We must preserve the SNAP program at the present level to protect 
the hunger needs of so many people in our nation who are living in 
poverty.
    We must stop the subsidy program for agribusinesses. They 
absolutely have no need of government support.
    Please support the full endorsement of all provisions of the Local 
Foods, Farms and Jobs Act (H.R. 3286).
    I think we must fully fund conservation programs, such as the 
Conservation Stewardship Program, and make sure that enrollment in any 
new insurance subsidies are tied directly to compliance with 
conservation programs.
    Please support the implementation of all provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236).
    Please vote to maintain the EQIP Organic Initiative.
                                 ______
                                 
                       Comments of Kelly Wassell
    Date Submitted: Friday, May 18, 2012, 2:46 p.m.
    City, State: Kapa'a, HI
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Aloha!
    Please take a moment to think about where you last meal came from. 
Know that we could have an entirely sustainable and local food system 
if we put our money where our mouth is! There are tons of young people 
raring to farm and create the local food economy, but they need 
encouragement and help! It is a risky and expensive business to start 
up no matter how you look at it, but small, sustainable farmers are 
willing to take that risk to build food security for the communities 
that they love!
    I am one of them, but money is the main thing that holds me back! 
Access to land that I can count on being in my possession for 25 years 
or more is very hard to find. Especially in Hawai'i, there is a huge 
need to create local, small scale, sustainable agriculture so that 
everyone can continue to eat in the next 50 years. I believe in that 
amount of time regular shipping from the mainland will end, so Hawai'i 
needs to start now building that local food network so we can care for 
our ohana and 'aina.
    Please support beginning and sustainable farmers in the next farm 
bill!
    Mahalo!

Kelly Wassell,
Beginning organic farmer in Kaua'i.

    Date Submitted: Sunday, May 20, 2012 9:50 p.m.
    Comment: Aloha Chairman Lucas, Mahalo for the opportunity to submit 
testimony to the House Committee on Agriculture on the next farm bill. 
My district representative is being copied on this testimony. I work as 
a farm hand on an organic vegetable farm and live in Kaua'i, Hawaii, 
one of the most expensive rural counties in the U.S. So trying to save 
up for starting my own venture is virtually impossible on $10 per hour. 
I am going to need help from somewhere, and considering that the 
government used billions to bail out large banking institutions, I 
think we can spend a refreshing amount on the people that are and will 
supply us with fresh, healthy food in the future! Small and sustainable 
farmers need help especially in counties where the land prices are sky 
high because incredibly rich people buy land here and have driven up 
prices! Kaua'i imports 90% of its food, so food security is very low, 
and there is an amazing amount of open, flat land that would be great 
for agriculture, but only partially being used for cattle or GMOs so 
that rich people can get a tax break! There are so many challenges to 
farming on an island like this, but I want to do it, and I want to make 
sure all the hard work I do to improve the land is not squandered by 
some irrational owner. It is extremely hard to get long term land 
leases here and I have seen master farmers that have poured their sweat 
into land be kicked off without due regard to the amazing work they do. 
Lots of reasons for farmers to own their own land, but so many things 
stand in the way of that, especially money! So please consider where 
that next mouthful comes from! Small and sustainable farmers need all 
the support they can get! I ask that the Committee endorse all of the 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

Kelly Wassell.
                                 ______
                                 
                        Comment of Brent Wasser
    Date Submitted: Friday, May 18, 2012, 9:20 a.m.
    City, State: Williamstown, MA
    Occupation: Higher Education Programming
    Comment: With the new farm bill, please support:

  <bullet> alternative agricultural systems such as organic and 
        biodynamic production

  <bullet> the production of whole foods, and provide less money to 
        commodity crop production destined for processed foods

  <bullet> SNAP outreach programs and nutrition education programs

  <bullet> beginning farmer initiatives and support programs
                                 ______
                                 
                    Comment of Paula Squire Waterman
    Date Submitted: Friday, May 18, 2012, 2:45 p.m.
    City, State: Rockville, MD
    Comment: I am a consumer who watches very closely what I put in my 
body. Big agribusiness could care less about me and my needs. Their 
focus is on the bottom line and Not my health.
                                 ______
                                 
                        Comment of Julia Waters
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Oakland, CA
    Occupation: Nutrition Student
    Comment: I would like to see increased subsidies for small farmers 
and organic farmers in order to encourage the production of healthier 
foods near urban areas. In light of the obesity crisis, subsidizing big 
corn for cattle feed and HFCS doesn't make sense. We need to lose 
weight, and that starts with switching our financial support to the 
kinds of food commodities that are health promoting. Please take a 
stand before the poor health of our nation determines our future. 
Prevention is Always cheaper than interventions later on. Thank you.
                                 ______
                                 
                       Comment of Kristine Waters
    Date Submitted: Friday, May 11, 2012, 10:31 a.m.
    City, State: Indian Wells, CA
    Occupation: Teacher, Environmental Advocate
    Comment: Support individual farmers who farm sustainably and 
organically with zero or minimal pesticide use. Do not support Monsanto 
or any organization that farms using monoculture or GMO's.
                                 ______
                                 
                        Comment of Carl Watkins
    Date Submitted: Friday, May 18, 2012, 1:57 p.m.
    City, State: Eugene, OR
    Occupation: EV Battery Distribution
    Comment: Protect Organic Farms, keep organic regulations strict and 
strong. Label all GMO products. Stop banking harassment. End subsidies 
for wealthy farmers.
                                 ______
                                 
                        Comment of Paul Watkins
    Date Submitted: Friday, May 18, 2012, 3:03 p.m.
    City, State: Longview, TX
    Occupation: Home Health
    Comment: The USDA has destroyed family farms in this country. 
support self sustaining family farming, not monolithic corporate 
agribusiness, if a single family owns a massive one crop corporate farm 
with excessive use of petroleum based fertilizers, that does not make 
it a family farm. Stop Destroying Agriculture In America. If you need 
clarification, e-mail me. If you are paid lackeys of corporate masters, 
ignore this. Americans are not stupid, and we vote.
                                 ______
                                 
                        Comment of Bruce Watson
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: Raleigh, NC
    Occupation: Film Colorist/Finisher
    Comment: The future of agriculture comes down to sustainability. 
And our current status quo is anything but sustainable. So, shift away 
from big ag. Shift instead toward little ag and support small organic 
farms.
    Redirect the current unnecessary subsidies of ``big ag'' toward 
small farms that practice sustainable agriculture. In particular, 
establish farm policy that establishes organic practices, teaches these 
practices, and subsidizes small farmers who shift to these practices.
    We have to do this. It's not a choice. The cost of fossil fuel is 
only going to rise. And as fossil fuels go, so go the fertilizers, 
pesticides, and herbicides.
    But this is also a public health issue. The more we learn about the 
fertilizers, pesticides, and herbicides in the food supply, the more we 
learn that even very low levels have bad public health outcomes, 
especially for the farmers and field workers.
                                 ______
                                 
                         Comment of Jan Watson
    Date Submitted: Friday, May 18, 2012, 3:06 p.m.
    City, State: Hakalau, HI
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Please consider and encourage small sustainable no spray 
farming. The food we eat is essential to our bodies and mind. The land 
that gives us our food is needing the same attention. Do not give into 
money and mass production of food, that is lacking in nutrition and 
diminishes the land. This is not rocket science but it is the survival 
of our planet and the health of all that inhabit her. Mahalo.
                                 ______
                                 
                         Comment of Jeri Watson
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: La Grande, OR
    Occupation: Teacher
    Comment: It is time to support sustainable practices that are 
healthy for people and the Earth. People are clamoring for safer food. 
Let Oregon be a leader in this regard. Keep supporting positive change, 
not large corporate food and damn the consequences. Portlandia is a 
laughable extreme, but people are caring more and more about good local 
food.
    Please help support it. Fund positive change!
                                 ______
                                 
                        Comment of Julie Watson
    Date Submitted: Sunday, May 20, 2012, 10:20 p.m.
    City, State: Greensboro, NC
    Occupation: Small Business Owner
    Comment: As a small business owner, I rely on the organic products 
that I can find locally. Please take new measure to help grow the local 
organic markets, instead of hinder them. Big Ag is the cause of many of 
the issues in this country. Please focus the farm bill away from Big Ag 
and towards a more sustainable way to farm.
                                 ______
                                 
                       Comment of Marilyn Watson
    Date Submitted: Thursday, May 17, 2012, 2:21 p.m.
    City, State: Hartford, CT
    Occupation: Retired
    Comment: First of all, this country is already in the ground; 
people in Congress do not care about people in the country. This is 
where God steps in and will allow the people to take over this 
country--watch and see! I don't receive SNAP benefits because they 
messed up on my paperwork I sent them. But if you take them away there 
will be people standing outside of the White House angry! Do not take 
away the SNAP for the people that need it!
                                 ______
                                 
                         Comment of Paul Watson
    Date Submitted: Wednesday, May 16, 2012, 2:13 p.m.
    City, State: Anchorage, AK
    Occupation: Food Stamp Outreach Coordinator--AFC
    Comment: In 2 years of visiting villages and rural communities in 
Alaska, I've witnessed no let up in ``food anxiety'' due to rising fuel 
prices, housing and medical costs, and lack of jobs and income. I urge 
Don Young and members of the House Agriculture Committee to reject cuts 
in these programs for Alaska's poor!
                                 ______
                                 
                         Comment of Phil Watson
    Date Submitted: Friday, May 18, 2012, 8:25 p.m.
    City, State: Langley, WA
    Occupation: Retired Advertising Exec.
    Comment: My wife I buy organic products as much as possible even 
though we pay more for it. We are voting with our dollars to support 
sustainable and ecologically friendly agriculture. Large commercial 
mono-culture farming is raping the land, polluting our waterways and 
turning farmland into desert by killing the soil. We are also buying 
organic to maintain our health to reduce our contribution to healthcare 
costs. We urge to protect the viability of organic farming in this 
country.
                                 ______
                                 
                         Comment of Ann Watters
    Date Submitted: Friday, May 18, 2012, 3:29 p.m.
    City, State: Salem, OR
    Occupation: Health Care
    Comment: End food subsidies. Label GMO food. Do not allow Monsanto 
to run agriculture. Decisions. We will have a nation of sick people and 
dead people.
    No ethanol subsidies.
                                 ______
                                 
                         Comment of Nancy Watts
    Date Submitted: Friday, May 18, 2012, 10:09 p.m.
    City, State: San Luis Obispo, CA
    Occupation: Retired English Teacher, Raised on Farms
    Comment: Bad ideas that Congress is considering: cutting funding to 
vital programs such as nutrition, conservation and cutting support for 
organic and sustainable agriculture . . .
                                 ______
                                 
                          Comment of Ann Waugh
    Date Submitted: Friday, May 18, 2012, 2:31 p.m.
    City, State: Boring, OR
    Occupation: Self-Employed
    Comment: The old farm bill is unfair to the smaller farms. Please 
level the field and stop giving all the selling and marketing power to 
the big agricultural communities. We need to sustain all local and 
small farms to ensure free access to fresh, healthy, unprocessed junk 
foods.
                                 ______
                                 
                         Comment of Nathan Way
    Date Submitted: Friday, May 18, 2012, 11:07 p.m.
    City, State: Knoxville, TN
    Occupation: Doctor
    Comment: I see a need to increase utilization of local produce and 
reduce subsidies to transportation of commodity produce farmed by large 
corporations.
                                 ______
                                 
                     Comment of Cathy Waymire Rooks
    Date Submitted: Saturday, May 19, 2012, 11:10 p.m.
    City, State: Langley, WA
    Occupation: Garden Designer and Landscape Contractor
    Comment: We are going the wrong direction with huge agribusiness 
farms. Our food isn't healthy or sustainable, current farming practices 
are ruining the soil, and GMOs threatens the very livelihood of much of 
the world's population. Please put the health of the planet ahead of 
big business' quest for profit and instead help support our small local 
producers.
                                 ______
                                 
                       Comment of Lynn Weathersby
    Date Submitted: Saturday, May 19, 2012, 6:17 a.m.
    City, State: Azle, AR
    Occupation: Stay-at-Home Housewife and Mother
    Comment: I am very concerned about what my children are ingesting. 
I understand that your action to improve and make safe the country's 
food supply may result in higher prices. This is a trade-off I'm 
willing to make to ensure the food my children eat is healthy, safe and 
nutritious.
            Sincerely,

Lynn Weathersby.
                                 ______
                                 
                        Comment of Cat Weatherup
    Date Submitted: Friday, May 18, 2012, 8:28 p.m.
    City, State: Berkeley, CA
    Occupation: Art Director
    Comment: With Autism 1,000-fold more prevalent than it was only 
decades ago, we need to Stop poisoning our food supply with pesticides. 
Many of us would rather have an insect in our veggies over poison. If 
we continue to poison our land, water, and food we can only expect 
illness to worsen. Please stop using Americans as unwitting lab rats 
for genetically modified foods and pesticides, so that big business can 
profit. Label them! Better yet, stop using them until long-term studies 
prove them innocuous. I don't care what Monsanto wants. We are not 
guinea pigs and it is unconscionable for this country to treat us as 
such!
                                 ______
                                 
                        Comment of Andrew Weaver
    Date Submitted: Friday, March 16, 2012, 2:57 p.m.
    City, State: Castaic, CA
    Occupation: Unemployed
    Comment: You have an obligation to insure that all families and 
individuals receive the proper healthy meals that are required in order 
to survive. Excluding chemical based foods with heavy chemicals that 
will end up killing millions of Americans.
                                 ______
                                 
                        Comment of Becca Weaver
    Date Submitted: Monday, May 14, 2012, 9:22 a.m.
    City, State: Somerville, MA
    Occupation: Farm Service Provider
    Comment: Dear Committee on Agriculture,

    I work with beginning and established farmers every day through my 
work on Farmland Matching and Beginning Farmer Support in MA. I have 
noticed firsthand the difference that Federal programs have made in the 
lives and businesses of local farmers, as well as the regional food 
system in which we operate. In this light, I urge you to create a farm 
bill which:

    (1) invests in the next generation of farmers and ranchers--
        guarantee $25 million per year in mandatory funding for the 
        Beginning Farmer and Rancher Development Program. We need a 
        national strategy and commitment to support beginning farmer 
        and ranchers entering agriculture. With an aging farm 
        population, now is the time to invest in the future of American 
        agriculture by nurturing new agriculture start-ups.

    (2) protects our natural resources--protect the Conservation 
        Stewardship Program from unfair funding cuts, and improve it by 
        ranking applications solely on their conservation benefits. 
        Farmers count on CSP and other conservation programs to 
        conserve soil for future generations, keep water and air clean, 
        and create habitat for wildlife--all while farming profitably.

    (3) drives innovation for tomorrow's farmers and food 
        entrepreneurs--fund the Organic Agriculture Research and 
        Extension Initiative at $30 million per year in mandatory 
        funding. Investment in agricultural research is vital to 
        continued productivity and innovation in growing and diverse 
        sectors of American agriculture, such as organic agriculture. 
        And

    (4) creates jobs and spurs economic growth--support programs like 
        the Value-Added Producer Grants Program by guaranteeing $30 
        million of mandatory funding per year. VAPG provides seed money 
        to help farmers innovate in agriculture and create jobs while 
        securing a sustainable path to market-based farm profitability.

    Thank you for doing your best to make this happen in order to 
create a vibrant agricultural and food system for every Farmer and 
consumer in America.
            Sincerely,

Becca Weaver.
                                 ______
                                 
                        Comment of David Weaver
    Date Submitted: Tuesday, May 08, 2012, 12:11 p.m.
    City, State: Lubbock, TX
    Occupation: CEO, South Plains Food Bank
    Comment: I work with the South Plains Food Bank. Since 2008, we 
have seen a dramatic increase the number of families receiving food 
assistance from us. Last year's drought made the situation worse for 
citizens of our rural communities.
    Local donors have stepped up to help us meet the increased needs of 
our community. But even with increased support we are being 
overwhelmed. As the economy improves, I expect to see a decrease in the 
number of families we assist. However, in the meantime, families 
throughout the South Plains are looking to the food bank and our 
network of churches and non-profits for food assistance.
    We need a strong farm bill to make sure that struggling families 
can put food on the table. I ask that you pass a farm bill that 
protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
                                 ______
                                 
                          Comment of Gene Webb
    Date Submitted: Friday, May 18, 2012, 3:59 p.m.
    City, State: San Rafael, CA
    Comment: I'm informed enough to be a vegan who buys only organic. 
U.S.D.A. F.D.A. Congress, Supreme Court, President, have the 
credibility of starving devils. Wish you luck Lynn. Forks over Knives.
                                 ______
                                 
                        Comment of Patricia Webb
    Date Submitted: Friday, May 18, 2012, 11:53 a.m.
    City, State: State College, PA
    Occupation: Health Educator
    Comment: I am a nurse--farming practices are public health issues. 
Human health depends fundamentally on the safety and quality of what we 
eat. Mass produced, engineered, and heavily processed foods shipped 
between countries and across oceans is not only unhealthy for people, 
it is not sustainable for economies or habitats.
    Please educate yourself about local/regional farming and its 
benefits for human & environmental health. Smaller scale regional 
farming is the most responsible and sustainable path for benefiting 
quality of life & health on the planet.
                                 ______
                                 
                        Comment of Jeff Webster
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: Harmony, MN
    Comment: Hi,

    It is high time to clean up USDA, FDA and our ag schools all who 
work for Ag Industry. Not at all protecting the very people that pay 
their salary. Yours too. The present system is corrupt and awful to say 
the least.
    I want my tax dollars helping out farmers who produce food for 
people not wasting limited natural resources on crap like ethanol.

Jeff Webster,
Harmony, MN.
                                 ______
                                 
                        Comment of Kevin Webster
    Date Submitted: Saturday, May 19, 2012, 11:59 a.m.
    City, State: Abilene, TX
    Occupation: Self-Employed
    Comment: Dear Sir,

    While I understand that the lion's share of your focus in 
addressing the farm bill is to lookout for the many large agricultural 
interests of our district, I ask that you please not forget the 
citizenry, whom you are actually supposed to be representing. Please do 
not continue to fall for the erroneous logic of bigger is better, 
especially in this category of our life sustaining food supply. 
Contrary to other types of mass production, ``Better'' in this case, 
must instead be determined by the health supporting quality of the 
food, rather than the volume. We can eat less if it is rich in 
nutrients, but no amount of eating cardboard will ever serve the 
intended purpose adequately. The higher the quality of the food, the 
greater the health of the eater, and less that individual will need to 
depend on the government for helping them deal with poor health. If you 
point the tax dollars the correct direction, you won't need more tax 
dollars elsewhere to deal with the consequences of not doing so, as is 
the case with the current subsidization. Small farmers are the ones 
that need the subsidies, and particularly those committing to the 
higher standards of producing nutrient rich, high quality foods, i.e., 
Organic Farming that is actually self-sustaining as it contributes back 
to nature what it takes, rather than depleting it of all that is truly 
given by nature. Man made artificial substitutes will always come with 
consequences, and more often than not, they are grave and far more 
expensive, leaving ruin in their wake, and ultimately hurrying us to 
our graves. Please consider your own life and that of your loved ones, 
and the quality of life you desire to provide for them, and then offer 
the same opportunity to your constituents. Support increasing our 
access to nutritious whole foods, free from contamination by man made 
products and thus free from the devastating consequences to our health 
and quality of life. Food shortage is not the genuine concern, rather 
it is food quality. Please open your eyes to the true science and 
future, rather than the for-profit driven manipulations of facts you 
are no doubt perpetually bombarded with by the larger business 
interests. Please quit helping them maim and kill us for the sake of 
their profits. Don't forget who you are really accountable to, in this 
life and the next.
            Sincerely, one of your supporters to date,

Kevin Webster.
                                 ______
                                 
                       Comment of Shannon Weckman
    Date Submitted: Sunday, May 20, 2012, 7:51 p.m.
    City, State: Felton, CA
    Occupation: Retired/Disabled
    Comment: We need wholesome organic food, Not government subsidized 
unhealthy food such as high fructose corn syrup and GMO foods. Our 
health depends on good quality food and who would not want that.
                                 ______
                                 
                       Comment of Jennifer Weeden
    Date Submitted: Friday, May 18, 2012, 12:34 p.m.
    City, State: Upton, MA
    Occupation: Mom, Wife, Elementary School Administrator
    Comment: I can't think of any more important issue right now than 
the support for healthy, sustainable agricultural practices and support 
for the viability of small-scale (family!) farming. Allowing big 
agribusiness to not only destroy our planet with carcinogenic and 
otherwise harmful chemicals but also to actively work to destroy small-
scale farming is to allow the destruction of our planet and of a very 
American way of life. Now is the time to support organic farming, 
small-scale farming, and broad policies that protect the health of our 
people and of our planet.
                                 ______
                                 
                        Comment of Darrell Weems
    Date Submitted: Thursday, May 17, 2012, 7:55 p.m.
    City, State: Adel, IA
    Producer/Non-producer: Producer
    Type: Field Crops, Livestock
    Size: 151-300 acres
    Comment: In regard to the 2012 Farm Bill:

    (1) Imperative to pass a new farm bill before elections

    (2) Must contain strong conservation title even while reducing 
        budget exposure to stop uncontrolled U.S. Gov't spending and 
        debt. Must think long term to protect our Ag. production 
        resources far into the future.

    (3) Needs to maintain a conservation compliance strategy with in a 
        strong crop insurance program, and that can be done without 
        jeopardizing all farmer access to crop insurance. i.e.,: amount 
        of subsidization based on conservation practiced ($'s or %) or 
        similar

    (4) Needs a strong new or young farmer component. Extremely hard, 
        almost impossible for a new young farmer to gain land access, 
        to compete with the big guys.
                                 ______
                                 
                       Comment of Patricia Weems
    Date Submitted: Wednesday, May 09, 2012, 4:38 p.m.
    City, State: Chatsworth, CA
    Occupation: Sales Marketing
    Comment: I'm in the same situation as other seniors, but wound up 
destitute due to a personal injury when hit by an uninsured driver, 
lost job had to sell car and possessions to survive since I was an 
independent contractor . . . still looking for work, trying to set up 
internet consulting business in addition . . . really diffi-
cult . . . I'd like to be able get a small loan to start my business 
Chores-on Call . . . highly in demand in my area . . . would like to be 
able to hire seniors only to help get them out of destitution . . . 
it's a horrible place to be. What the government needs to do is to 
allot small business start up loans for seniors and let us start a 
network of seniors who are capable of working and want to . . . we can 
help each other. I will be homeless if something doesn't click soon. 
The private sector could get involved, especially wealthy corporations 
who could get tax breaks and let us pay the loans back with reasonable 
monthly payments . . . there is a wealth of knowledge and capability 
among many seniors . . . [Redacted] Google voice if responses are 
required.
                                 ______
                                 
                         Comment of Tyson Weems
    Date Submitted: Saturday, May 19, 2012, 4:57 p.m.
    City, State: Portland, ME
    Occupation: Registered Dietitian/Public Health Educator
    Comment: The farm bill can promote public health better by reducing 
subsidies for corn and soy and increasing them for other vegetables. In 
general, it should reflect public health interest rather than the 
interests of large agricultural and chemical companies, many of which 
run counter to improving Americans' diets and associated health.
                                 ______
                                 
                      Comment of Melanie Wehmeyer
    Date Submitted: Saturday, May 19, 2012, 12:58 a.m.
    City, State: Boerne, TX
    Comment: Organic farming is the Only way Anyone should be farming. 
There must not even be an alternate way. The health of the people of 
this United States depends on it! GMO's must be stopped!
                                 ______
                                 
                         Comment of Edna Weigel
    Date Submitted: Saturday, May 19, 2012, 9:08 a.m.
    City, State: Bisbee, AZ
    Occupation: Writer
    Comment: Please make sure the farm bill emphasizes sustainability 
rather than subsidizing industrial ag. Food stamps to serve as a safety 
net for those most in need and nutrition programs to fight the health-
care costs of obesity are important.
                                 ______
                                 
                        Comment of Donna Weiler
    Date Submitted: Friday, May 18, 2012, 11:47 a.m.
    City, State: Huntingdon Valley, PA
    Occupation: Homemaker
    Comment: Please stop the support for meat, dairy, eggs, poultry, 
soy and corn. We need to support those farmers growing healthful foods: 
fruits & vegetables.
                                 ______
                                 
                       Comment of Larry Weinberg
    Date Submitted: Sunday, May 20, 2012, 9:50 a.m.
    City, State: East Meadow, NY
    Occupation: Massage Therapist/Yoga Instructor/Colon Hydrotherapist
    Comment: Please don't cut spending on research for organic farming 
or support for beginning Farmers. We need to keep organics alive in 
order to keep this planet alive. The chemicals are destroying our 
bodies, our health and the health of the entire planet. Please help.
                                 ______
                                 
                       Comment of Leslie Weinberg
    Date Submitted: Friday, April 27, 2012, 8:49 a.m.
    City, State: Stamford, CT
    Occupation: Unemployed Advocate
    Comment: We must continue to properly budget the nutrition 
programs, such as SNAP, WIC, and TEFAP. In these difficult times, more 
people now depend on Food Banks, Pantries, and Soup Kitchens. I thank 
you for your support of these programs, and other aspects of the Safety 
Net as well.

Leslie Weinberg.
                                 ______
                                 
                       Comment of Margaret Weiner
    Date Submitted: Wednesday, May 16, 2012, 3:19 p.m.
    City, State: Urbandale, IA
    Occupation: Retired
    Comment:

  <bullet> America needs a farm bill that makes healthy food widely 
        available to all Americans--including schoolchildren! I urge 
        you to vote for a bill that provides flexibility for states to 
        use existing food procurement programs to purchase fresh, 
        healthy food from local farmers and ranchers.

  <bullet> And maybe most importantly of all, for the future of our 
        state and all who live here, pass a farm bill that protects our 
        natural resources--protect the Conservation Stewardship Program 
        from unfair funding cuts, and improve it by ranking 
        applications solely on their conservation benefits. Farmers 
        count on CSP and other conservation programs to conserve soil 
        for future generations, keep water and air clean, and create 
        habitat for wildlife--all while farming profitably.

  <bullet> I also want to see legislation that invests in the next 
        generation of farmers and ranchers--guarantee $25 million per 
        year in mandatory funding for the Beginning Farmer and Rancher 
        Development Program. We need a national strategy and commitment 
        to support beginning farmer and ranchers entering agriculture. 
        Our farm population is aging and now is the time to nurture new 
        agriculture start-ups.

  <bullet> I also urge you to support a farm bill that funds the 
        Organic Agriculture Research and Extension Initiative at $30 
        million per year in mandatory funding. Investment in 
        agricultural research is vital to continued productivity and 
        innovation in growing and diverse sectors of American 
        agriculture, such as organic agriculture.
                                 ______
                                 
                       Comment of Carol Weingeist
    Date Submitted: Friday, March 16, 2012, 8:40 a.m.
    City, State: Hanover, NH
    Occupation: Retired
    Comment: Please label all food that are GMO. Please subsidize food 
for the hungry; and make it healthy food that has labels to identify 
content. Do not give the hungry junk food.
                                 ______
                                 
                     Comment of Sharyl Weinshilboum
    Date Submitted: Friday, May 18, 2012, 11:37 p.m.
    City, State: Pacifica, CA
    Occupation: Preschool Teacher
    Comment: I am a single mother with three children, a preschool 
teacher, who is trying to live on a salary of less than $2,000.00 a 
month in the San Francisco peninsula. The children's father has paid no 
child support in 2012. Without the help of SNAP benefits, only about 
$350.00 a month, and Second Harvest food bank I would not be able to 
afford to feed my family. Please help people like me by keeping funding 
strong for food programs.
                                 ______
                                 
                       Comment of Chris Weintrob
    Date Submitted: Friday, May 18, 2012, 9:56 a.m.
    City, State: Bethesda, MD
    Occupation: Nutrition Counselor
    Comment: The healthcare crisis in America, which includes rising 
cases of obesity, type 2 diabetes, heart disease, Alzheimer's, and 
certain cancers, could be resolved with one simple solution: meaningful 
subsidies to fruit and vegetable growers. It's no coincidence that the 
most unhealthy, cheap foods that are causing these modern diseases are 
made with products that are heavily subsidized by the government. 
Countless times I hear people say, ``I can't afford to eat healthy . . 
.'' What kind of country are we where our policies make our citizens 
sick and keep them sick. Please do the right thing by looking out for 
the interests of the consumer rather than the interests of big food 
companies. It really is a simple solution and it's the right, decent, 
humane thing to do.
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                        Comment of Anna Weisberg
    Date Submitted: Thursday, May 17, 2012, 2:50 p.m.
    City, State: Philadelphia, PA
    Occupation: Teacher
    Comment: We need a farm bill that encourages new farmers to enter 
the industry, small family farmers to stay in the industry. Stop 
subsidies to the largest producers, and instead provide grants and seed 
money to new and small growers.
    We need a farm bill that makes healthy food available to all people 
by allowing those with benefits to use them at farmers markets, among 
other programs.
    The farm bill should support farms that conserve resources and do 
not degrade the surrounding environment or soil. Please protect the 
Conservation Stewardship Program from funding cuts.
    Last, we need a farm bill that invests in research and innovation. 
Please fund the Organic Agriculture Research and Extension Initiative 
at $30 million per year in mandatory funding.
    Thank you.
                                 ______
                                 
                        Comment of Jean Weisman
    Date Submitted: Friday, May 18, 2012, 10:52 a.m.
    City, State: Brooklyn, NY
    Occupation: Retired
    Comment: I urge you to stop subsidizing big farms that are making 
huge profits. You should support small farms that are providing organic 
fruits and vegetables to school children. We need more food stamps and 
farmers' markets.

Jean Weisman
                                 ______
                                 
                        Comment of Charlie Weiss
    Date Submitted: Friday, May 18, 2012, 5:12 p.m.
    City, State: Portland, OR
    Occupation: Research Consultant
    Comment: The farm policy of this country is based on a reality 
between 50 and 100 years old. It would seem worthwhile to update that 
policy, which now seems to enrich a few at the expense of . . . 
everyone else. Thanks.
                                 ______
                                 
                        Comment of Gabriel Weiss
    Date Submitted: Saturday, May 19, 2012, 8:09 a.m.
    City, State: East Orland, ME
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery, Vegetables
    Size: Less than 50 acres
    Comment: We have to invest in the future. Environmental protection 
and consumer protection are indivisible with long term economic 
sustainability. We need to encourage alternative methods of farming and 
empower localized food systems or we risk unacceptable vulnerability to 
our food security and national security. Please give us a farm bill 
that is for the people and the planet. Thank you.
                                 ______
                                 
                         Comment of Gregg Weiss
    Date Submitted: Friday, May 18, 2012, 5:51 p.m.
    City, State: Savannah, GA
    Occupation: Musician
    Comment: It's a very simple thing really. Just like we always knew 
about smoking, even before the facts were printed, it has been clear 
from the very beginning that gross agricultural concerns and all sorts 
of additive based food products are intrinsically unhealthy.
    As a person reliant on the commercial agricultural business I find 
it imperative to search out foods grown with quality And Care.
    It is time we start taking account of almost lost practices and 
encourage local supply and production chains, and how to exploit them 
in our current state of development.
    Please help keep people above profits. As legislators you are our 
only hope.
                                 ______
                                 
                         Comment of Rike Weiss
    Date Submitted: Friday, May 18, 2012, 3:22 p.m.
    City, State: Honolulu, HI
    Occupation: Healthcare Professional
    Comment: Hawai`i imports 90 percent of its food. A policy that 
favors small farmers (over Monsanto and other agribusiness) would 
contribute to healthier foods for all. Haven't we learned that mono-
crops don't work (only for stockholders, only for so long).
                                 ______
                                 
                      Comment of Nancy Weiss-Fried
    Date Submitted: Friday, May 18, 2012, 4:54 p.m.
    City, State: Cranston, RI
    Occupation: Landscape Designer
    Comment: As a consumer with children and grandchildren I am 
concerned about the health of our food supply and also about the future 
of agriculture in the U.S. Nowhere does it seem that agribusiness is 
concerned about good nutrition and good, sustainable farming practices. 
Congress should be encouraging small farmers more than the mega farm 
businesses.
                                 ______
                                 
                         Comment of Kerri Welch
    Date Submitted: Friday, May 18, 2012, 4:47 p.m.
    City, State: White Plains, NY
    Occupation: Early Childhood Adjunct
    Comment: Please make the needed changes on the farm bill to help 
the little organic farmers, have safer, healthier food and less 
illnesses and deaths because of contaminated food. Please also realize 
that the majority of Americans want to know and need to know exactly 
what is in their food, even if it is a GMO or ingredients from another 
country such as China. My beloved miniature dachshund almost died in 
2007 because of the unlisted Chinese ingredient melamine in her USA 
made dog food. Her and I survived 9/11 together living in downtown 
Manhattan, so she is my therapy dog and I do not know what I would do 
without her. Too many other pets did die in 2007 because of the 
unlisted ingredient above so you must do something now to make sure 
that never happens again. I am also a mother of two young boys (one a 
baby) and I feed them mostly organic food because of all the crap 
allowed in non-organic food. GMO's were allowed into our food in the 
1990's and since then there has been a rise in food allergies, autism 
and cancer. Makes you think?
                                 ______
                                 
                         Comment of P. Welland
    Date Submitted: Friday, May 18, 2012, 5:47 p.m.
    City, State: Florence, MA
    Occupation: Musician
    Comment: Please don't give everything away to big AG. That is 
neither sustainable, fair, nor democratic. Giant corporations do not 
need further handouts or a leg up, family farmers do . . . so level the 
playing field.
    Support organic, sustainable production that does not ruin the 
environment, the water systems, or the soil, as so many industrial 
farms do.
    Don't give the store away to Monsanto, with their unsustainable, 
pesticide-based products that create super weeds, water, air, and soil 
pollution nightmares. This is very bad for our children's developing 
bodies and brains.

  <bullet> Please do fund programs that support beginning and socially 
        disadvantaged farmers and ranchers, organic farming, regional 
        farm and food economies, and rural development. We need more 
        farmers and ranchers, more sustainable food production, and 
        more economic opportunity in our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                      Comment of Carly Wellington
    Date Submitted: Wednesday, May 02, 2012, 10:47 a.m.
    City, State: Portland, OR
    Occupation: Student
    Comment: One comment that I would like to bring to your attention 
is the percentage of farmers that are being represented by their 
districts; only \1/3\ of U.S. House of Representatives members 
represent fewer than 1,500 farmer in their districts so I would like to 
see this number improved.
    I would also like to see younger farmers involved in agriculture; 
so increased education would be necessary.
                                 ______
                                 
                        Comment of Barbara Wells
    Date Submitted: Wednesday, April 18, 2012, 11:19 a.m.
    City, State: Claremore, OK
    Occupation: Social Worker
    Comment: With the cost of fuel and food increasing rapidly, many of 
our clients are unable to feed their families without assistance. 
Please support the farm bill and protect the TEFAP and SNAP programs. 
We may not be able to control the cost of gasoline and other energy 
sources, but, we should try to make sure, no person in this country 
goes hungry.
                                 ______
                                 
                        Comment of Collin Wells
    Date Submitted: Friday, May 18, 2012, 1:21 p.m.
    City, State: Richardson, TX
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: Things need to change in America and fast. Cancers, mental 
and behavior related illnesses, obesity, and other serious health 
issues are on the rise because of the way Americans eat and are fed. 
Unfortunately many believe that the government has their best interests 
in mind when it comes to food and no one would intentionally be 
poisoning the population. That is obviously not true with the 
continuous intrusions into what's ``right versus wrong'' by big 
agricultural firms who genetically modify and treat our food without 
any long-term research on the health risks.
    Please help us change things.
            Regards,

Collin Wells.
                                 ______
                                 
                       Comment of Dawn Anne Wells
    Date Submitted: Friday, May 18, 2012, 2:59 p.m.
    City, State: Union Mills, IN
    Occupation: Retired
    Comment: Please consider your decisions in light of the fact that 
every single person Needs healthful food. Anything you do to encourage 
food produced with GMO and/or non-sustainable agricultural practices is 
a blow to the health of people everywhere (not just in the U.S.A.). It 
affect not only the food produced, but also the environment. Please 
think before you act.
                                 ______
                                 
                          Comment of Jim Wells
    Date Submitted: Saturday, May 19, 2012, 2:59 a.m.
    City, State: Medford, OR
    Producer/Non-producer: Producer
    Type: Fruits
    Size: 50-150 acres
    Comment: As I prepared to figure out how to compose the most 
poignant, eloquent, comprehensive, and entrenched barrier-piercing 
essay that might even stand a chance of my comments getting even a 
semblance of your serious attention despite the incredibly thick 
insulation that your agricultural paradigm covers you with, the 
following link appeared in my inbox. Its timeliness and spot-on 
reflection of the basis of my advocacy for fundamental reform of 
Federal agricultural policy begs for it to be my choice of comment at 
this time. For, if you don't understand and appreciate it, there is not 
a snowball's chance in hell that you would understand nor appreciate 
any of thousands of specific comments I could have made. And if you 
somehow miraculously DO understand or appreciate it, then you don't 
need my specific comments, because you will be capable yourself of 
designing new legislative direction and language that could not help 
but be vast improvements many orders of magnitude over past and 
currently in force farm bills.
    The link to the essay I incorporate into this comment as its core 
now follows:http://www.tomdispatch.com/post/175538/
tomgram&#37;3A_ernest_callen 
bach&#37;2C_last_words_to_an_america_in_decline/.*
---------------------------------------------------------------------------
    * The information referred to is retained in Committee file.
---------------------------------------------------------------------------
                                 ______
                                 
                        Comment of Rachel Wells
    Date Submitted: Saturday, May 19, 2012, 5:09 a.m.
    City, State: Brooklyn, NY
    Occupation: Artist, Art Teacher and Child Care Specialist
    Comment: Family farms are as American as apple pie, the Declaration 
of Independence, our right to vote and public education. I want to eat 
food that is grown in my country and if possible in my state. Stop the 
loss of family farms to development. Help our farmers.
                                 ______
                                 
                         Comment of Ruth Wells
    Date Submitted: Friday, May 18, 2012, 1:28 p.m.
    City, State: San Francisco, CA
    Occupation: Administrative Professional
    Comment: I strongly urge the Committee to use this opportunity to 
direct the nation's farm policy toward organic and sustainable farming 
methods. It is critical that small family farms be supported and that 
subsidies to industrial producers end.
                                 ______
                                 
                        Comment of Shannon Wells
    Date Submitted: Saturday, May 19, 2012, 12:13 p.m.
    City, State: Florence, AL
    Occupation: Photographer
    Comment: I support organic farming and the elimination of harmful 
chemicals to our land and foods, needed funding for farmers growing 
organic and healthy alternatives in foods, improving the lives of the 
citizens of Alabama through a healthier organic choice in our food 
products.

Shannon Wells.
                                 ______
                                 
                         Comment of Mark Welsh
    Date Submitted: Friday, May 18, 2012, 2:56 p.m.
    City, State: Newark, OH
    Occupation: Educator
    Comment: We need a realistic farm bill that will help provide safe 
and wholesome foods for the American Public and for those around the 
world who benefit from America's production. Don't forget about our 
organic farmers. Thank you for your consideration.
                                 ______
                                 
                        Comment of Sjon Welters
    Date Submitted: Saturday, May 19, 2012, 8:47 p.m.
    City, State: Cabot, VT
    Occupation: General Manager of an Organic Food Processor
    Comment: We need fairness and a level playing field when it comes 
to agriculture. Corporations and large farms have for too long 
determined policy at the expense of small family farms. We also need to 
wean ourselves off chemical farming and stimulate organic farming to 
save our environment for those who will farm the fields when we've 
passed on.
    Thank you for considering these thoughts.
                                 ______
                                 
                         Comment of Silvia Wend
    Date Submitted: Friday, May 18, 2012, 2:31 p.m.
    City, State: Chestnut Ridge, NY
    Occupation: Teacher
    Comment: Please ban Monsanto's GMO's and immoral ways to deal with 
farmers, plants and animals. Treat the land and animals in natural 
ways. No toxic substances to fertilize or kill plagues, research better 
ways to do that! They certainly exist already (see biodynamic 
agriculture). Don't poison nature, water and man in any way.
                                 ______
                                 
                        Comment of Edwin Wensman
    Date Submitted: Friday, May 18, 2012, 10:30 a.m.
    City, State: White Bear Lake, MN
    Occupation: Retired Teacher
    Comment: Please insure that the new farm bill advances what should 
be the goal of such legislation: to nutritionally improve the American 
diet, to aid owners of individually owned and operated farms rather 
than corporate farms, and to insure that our export policy does not 
undermine the ability of receiving nations to sustain their own 
agricultural infrastructure and diet.
                                 ______
                                 
                      Comment of Rebecca Wentworth
    Date Submitted: Saturday, May 19, 2012, 8:14 p.m.
    City, State: Blue Hill, ME
    Occupation: Retired
    Comment: If you really want to improve the economy and the 
political system get speculation out of agriculture. Remember the only 
thing that produces real money from nothing is a seed. Every other 
transaction is a zero sum game.
                                 ______
                                 
                     Comment of Frederick Wenzlaff
    Date Submitted: Friday, May 18, 2012, 1:45 p.m.
    City, State: Los Angeles, CA
    Occupation: Sales
    Comment: I want an Organic Farm Bill! GMO's are dangerous and 
Monsanto does not have anyone's best interest in mind except their own. 
Don't be fooled. See the studies that document the destructive nature 
of Monsanto's GMO vegetable seeds. Please help!
            Thanks,

Fred.
                                 ______
                                 
                        Comment of Sylvia Wermes
    Date Submitted: Friday, May 18, 2012, 10:55 a.m.
    City, State: Scottsdale, AZ
    Occupation: Retired BSN
    Comment: Let's get back to America growing and providing food for 
our people. There is so much waste in government that not providing for 
families in need because they don't have a job is not what our country 
is about--let's take care of each other and help provide for those less 
fortunate.
                                 ______
                                 
                       Comment of Angela Werneke
    Date Submitted: Thursday, May 17, 2012, 1:15 p.m.
    City, State: Santa Fe, NM
    Occupation: Design Consultant
    Comment: The farm bill is an opportunity to support healthy, local, 
sustainable economy, which is the foundation of any true economic 
recovery. Next to water, food is the most basic element of life. Let's 
support life by supporting local farm economies, thereby providing a 
healthy, natural, abundant food supply for their local communities.
                                 ______
                                 
                       Comment of Charles Wesley
    Date Submitted: Sunday, May 20, 2012, 8:24 p.m.
    City, State: New York, NY
    Occupation: Legal Clerk
    Comment: Just looking at Americans, one can see that there is 
something wrong with our agriculture system and our priorities. Please 
make some meaningful change by supporting an Organic Farm Bill.
                                 ______
                                 
                       Comment of Janette Wesley
    Date Submitted: Saturday, May 19, 2012, 7:24 a.m.
    City, State: Greenville, SC
    Occupation: Nonprofit Farmer's Market Manager, Earth Market 
Greenville
    Comment: As the committee considers the 2012 Food and Farm Bill, I 
urge you to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.

  <bullet> Encourage sustainable farming methods and breeds of animals 
        that are sustainable.

    Please review the future of the ``Cornish Cross'' chicken, as to 
it's breeding methods will be extinct in 50 years and will provide a 
very large hole in poultry needs of the consumer. Please encourage 
other breeds of poultry rather than this one.
                                 ______
                                 
                          Comment of Eric West
    Date Submitted: Friday, May 18, 2012, 1:34 p.m.
    City, State: Port Orange, FL
    Occupation: Captain
    Comment: With the population of the world doubling in only a few 
decades, we need every bit of farmland taken care of and not poisoned 
and depleted. We need to make sure we have enough to feed our 
population without destroying the planet and we need to stop 
subsidizing Big Agriculture.
                                 ______
                                 
                         Comment of Heidi West
    Date Submitted: Friday, May 18, 2012, 2:02 p.m.
    City, State: Elkton, KY
    Occupation: Nurse Aide
    Comment: As it always has been, farmers have been the core to every 
aspect of our food supply. I do not agree with cutting funds from the 
organic farmers because of the quality of the food, farmers should not 
have to be forced and/or coerced into their farms being turned into 
farms where it is sprayed with chemicals that can and has harmed 
individuals. It is vital that the funds not be cut or reduced because 
families and individuals long for organic foods and cannot stand the 
fact the food supply is limited due to the fact the majority of the 
foods are tainted with deadly sprays. Please really consider this . . . 
It is a matter of health for everyone. Thank you.
                                 ______
                                 
                         Comment of Norman West
    Date Submitted: Friday, May 18, 2012, 10:00 p.m.
    City, State: Lake Ronkonkoma, NY
    Occupation: Professor of History
    Comment: It is vitally important that the Farm bill provide support 
for organic farming and local farmers' markets for the sake of a 
sustainable farm economy.
    The farm bill should not subsidize farm practices that are 
ecologically unsustainable or that do not need to be subsidized.
                                 ______
                                 
                         Comment of Penny West
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Belfast, ME
    Occupation: Clerk/Writer
    Comment: If we cannot feed our people with good, healthy food that 
won't cause cancer, heart disease, diabetes, obesity, etc., we are 
failing in our first duty to our citizens, which is to safeguard our 
natural resources and keep our country strong.
    Please do everything you can to encourage organic farmers, and stay 
away from GMO's.
    Until each of us knows who our farmers are and eat responsibly we 
will just be weakening ourselves.
                                 ______
                                 
                         Comment of Sybil West
    Date Submitted: Friday, May 18, 2012, 4:52 p.m.
    City, State: Wrightsville Beach, NC
    Occupation: Potter
    Comment: We desperately need to support small farmers, organic 
production, conservation, and nutrition, Huge agribusinesses are 
driving small family farms totally out of business and GMO's sometimes 
alter and contaminate other fields. Monsanto is one of the worst 
offenders. Please know you make laws and regulations which have 
consequences for years and years!
                                 ______
                                 
                        Comment of Virginia West
    Date Submitted: Friday, May 18, 2012, 10:33 p.m.
    City, State: Las Vegas, NV
    Occupation: Retired
    Comment: I would appreciate an agriculture system in the United 
States that gave more support to the small, independent farmer. Also to 
the organic growers. I do not want our land to be continually poisoned 
and destroyed by large companies like Monsanto, who uses Round-Up on 
the ground and also in their seeds. Round-Up is contaminating our land 
and waterways.
                                 ______
                                 
                      Comment of Serena Westberry
    Date Submitted: Saturday, May 19, 2012, 8:57 a.m.
    City, State: Covington, LA
    Occupation: Human Resources
    Comment: Now, more than ever, with obesity advancing at alarming 
rates . . . rates that will increase health costs Ten-fold, it is 
essential that we promote Healthy foods and Stop subsidizing the large 
manufacturers, the big boxes, that are producing unhealthy, 
nutritionally poor foods, the empty calories. I am asking you to do the 
right thing and Support the health and, by extension, the future 
financial health of our nation.
                                 ______
                                 
                        Comment of Tara Westman
    Date Submitted: Friday, May 18, 2012, 11:12 p.m.
    City, State: Altadena, CA
    Occupation: Philanthropy Program Manager
    Comment: It is very important to maintain food insecurity programs 
and increase access to healthy food. Please support local family 
farmers and opportunities to reduce hunger among all people.
                                 ______
                                 
                       Comment of Cathleen Weston
    Date Submitted: Friday, May 18, 2012, 2:12 p.m.
    City, State: Post Falls, ID
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: More support and financial assist for small Local 
producers More concern and interest in organic production and Major 
decrease in the overall use of pesticides. Please get corporate 
interests out of the production of food. Eating is a right, and health 
of the Earth and the people who consume the food produced should be a 
higher priority than profits.
                                 ______
                                 
                         Comment of Les Wetmore
    Date Submitted: Saturday, May 19, 2012, 8:49 a.m.
    City, State: Cambridge, VT
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: For far too long American agriculture has been moving in 
the wrong direction. Short term gains have been held in high regard 
with no concern for the long view. The evidence now piling up showing 
this is the wrong take. Years and even decades of potential development 
in sustainable agriculture have been lost due to the persistence of big 
chemical-Ag. It is truly vile that our leaders have allowed this to 
happen. Farmers and consumers alike have a right to chose safe and 
healthy practices over the fields of poison.
    The proof is in the pudding. The bees are dying, cancer rates are 
sky rocketing, and the super weeds we said would eventually replace the 
weeds that `Round-up' kills are here. (just to name a few things going 
very wrong)
    It is time to stop this madness. When history looks back at this 
time as the age of stupidity, will you be able to say the you fought to 
change it, or fought to keep it?
                                 ______
                                 
                        Comment of Kim Whatcott
    Date Submitted: Friday, May 18, 2012, 3:48 p.m.
    City, State: San Tan Valley, AZ
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: How much harm needs to be done before genetically modified 
foods are banned or at least labeled. Farmers are being sued by the 
likes of Monsanto and Dow because they don't kow tow to their robber 
baron tactics. We need a farm bill now, or what we really need is an 
impeached president, and his cronies removed from office and sanity 
restored to the country.
                                 ______
                                 
                        Comment of Wilma Wheeler
    Date Submitted: Saturday, May 19, 2012, 12:48 a.m.
    City, State: Mammoth Lakes, CA
    Occupation: Retired
    Comment: I think large commercial farms should not receive 
agricultural subsidies. The farm bill must have provisions to feed the 
millions of people in the U.S who do not have sufficient food to have a 
healthy life. The farms produce enough food to have everyone well fed.
                                 ______
                                 
                      Comment of William Whitaker
    Date Submitted: Saturday, May 19, 2012, 1:18 p.m.
    City, State: Charlottesville, VA
    Occupation: Landscape Architect
    Comment: The farm bill should dismantle the waste of traditional 
subsidies and use the money that is freed up to fund small regional 
farming initiatives. Local, small farms and distribution networks such 
as CSAs and farmers markets are critical to meet the food needs of the 
future. The type of food they offer is also better for the economy, 
consumers and the environment. It is a win, win, win undertaking and 
Washington needs to get behind it and push. This a non-partisan agenda 
with roots that reach back to the country's beginning. The America 
people are ready for a change.
                                 ______
                                 
                        Comment of Billie White
    Date Submitted: Saturday, May 19, 2012, 10:27 a.m.
    City, State: Scottsdale, AZ
    Occupation: Medical Librarian
    Comment: Keep Americans' healthy--Support organic food growers. No 
GMO food growers. It's is time to listen to your constituents. More 
organic food farmers. My family's health is important to me, and I seek 
out clean/organic food for my family. Your family is the American 
People, help us to be healthier. It is past time to support this 
initiative.
                                 ______
                                 
                       Comment of Christine White
    Date Submitted: Friday, May 18, 2012, 4:17 p.m.
    City, State: Madison, WI
    Occupation: Legal Advocate
    Comment: I just don't understand why Everyone does not wish to eat 
healthy. What we eat has nothing to do with political parties and 
everything to do with what is right for all of us.
                                 ______
                                 
                        Comment of Denise White
    Date Submitted: Saturday, May 19, 2012, 8:52 a.m.
    City, State: Southport, FL
    Occupation: Unemployed
    Comment: It is Critical to the health of this nation's people, 
land, wild and aquatic life that we Support healthy and organic food. 
Please Do The Right Thing!
    Thank you.
                                 ______
                                 
                          Comment of Jan White
    Date Submitted: Saturday, May 19, 2012, 11:35 a.m.
    City, State: Ochlocknee, GA
    Occupation: Retired
    Comment: Please consider real reform! We do need an organic farm 
bill and please Do Not allow giant commodity farmers and insurance 
companies to walk away with subsidized insurance programs while 
ignoring the small farmers--we need to support funding for Beginning 
Farmers--our food quality is at risk.
                                 ______
                                 
                       Comment of Jennifer White
    Date Submitted: Friday, May 18, 2012, 4:51 p.m.
    City, State: Chapel Hill, NC
    Occupation: Network Technologies
    Comment: I would like to see more support for organic and 
sustainable agriculture and less for petroleum-dependent methods of 
agriculture. I do not think taxpayers should have to subsidize large 
industrial operations year after year, especially for monocultural 
crops of questionable nutritional value. If the large industrial 
operations can't make ends meet, they're doing something wrong and 
throwing more taxpayer money at them won't fix the problem. If 
taxpayers are expected to support agriculture, it should be for 
sustainable agriculture that won't need more funding once it gets a 
head start.
                                 ______
                                 
                         Comment of John White
    Date Submitted: Saturday, May 19, 2012, 4:55 p.m.
    City, State: Bailey, CO
    Occupation: Transportation
    Comment: I used to be a producer, I was fortunate to move to the 
city. There I worked at the most polluting steel mill in the U.S. I 
have not developed cancer however. My farming cousins have all 
developed cancer. Lung, testicular, brain, prostate, all cancers my 
farming cousins have hadona has died of brain cancer.
    I no longer fear the producing. I fear what's being produced. All 
the poisons, antibiotics, hormones. It Needs To Stop!

John White.
                                 ______
                                 
                         Comment of Karen White
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: Los Angeles, CA
    Occupation: Audiobook Narrator
    Comment: It is Very important that this bill support small family 
farms that are working hard to grow fruits and vegetables sustainably. 
Stop supporting the soy and corn grown by big businesses that is turned 
into processed food like substances that are contributing to our 
obesity epidemic.
                                 ______
                                 
                       Comment of Kathleen White
    Date Submitted: Friday, May 18, 2012, 2:00 p.m.
    City, State: High Rolls, NM
    Producer/Non-producer: Producer
    Type: Dairy
    Size: Less than 50 acres
    Comment: We have a very small diary operation, but I feel fortunate 
that at least I live in a state where raw dairy is legal. If you truly 
care about America's health issues, let us have choices as to what we 
eat and let us know What we are eating (GMOs).
                                 ______
                                 
                         Comment of Leigh White
    Date Submitted: Friday, May 18, 2012, 4:58 p.m.
    City, State: Orlando, FL
    Occupation: Physician and Mother
    Comment: As both a physician and mother, I feel strongly about the 
increased nutrition and safety of organic produce for me and my family. 
I am a lifetime member in Homegrown Co-op, a group that sells locally 
grown organic produce and products here in Orlando. I believe that our 
representatives should support and enable this grass roots movement for 
greater nutrition and health. If you do, our future generations, of all 
socioeconomic strata, will have the opportunity to eat healthier, 
better tasting fruits and vegetables, and as a result will be on whole 
healthier people!
                                 ______
                                 
                         Comment of Lisa White
    Date Submitted: Sunday, May 20, 2012, 10:57 p.m.
    City, State: Doylestown, PA
    Comment: I want to know exactly where my food comes from and how it 
was produced. I need clear, honest, complete information and I am 
increasingly committed to eating organically produced food.
                                 ______
                                 
                        Comment of Marcia White
    Date Submitted: Wednesday, March 28, 2012, 2:25 p.m.
    City, State: Monmouth, IL
    Occupation: Retired
    Comment: I grew up on a farm. I plowed the fields, mowed fence 
rows, hauled grain to the elevator, cleaned feed lots, spread manure, 
and am a girl. I was driving when I was 12 years old. Tractors, mowers 
with sickles. I raised my own cattle. So, I am familiar with the 
workings of a farm. I am now a city girl, but the major problem I see 
with the area farmers in our ``Warren County'', is you are giving 
anyone with 5 acres our tax dollars to Not do anything with that 
property. There are people here taking a huge advantage of these 
government programs and making a great deal of money off the backs of 
the tax payer. If you look at only ``Warren County'' as far as the 
money the government ``Gives'' to the so-called farmers in this county 
it amounts to millions of dollars. Check it out! Subsidies, or we, non-
farmers, call it the ``farmers welfare'', is paid to people who should 
not be getting anything. Also, there are farmers who set their land 
aside, or claim they didn't get the yield, so here we go, and pay them 
for their loss. Well . . . these same farmers have the biggest 
equipment, hired hands, newest trucks, huge semi's, Cadillac's in the 
garage, and go on two or three cruises per year. Now, I'm only pointing 
this out because these people are busting the system. Please look at 
the subsidy program for Warren County only, and then figure all of the 
other counties in this country that gives out even more . . . This just 
doesn't make sense. The government farmers welfare has got to either 
stop or cut back. These area farmers need to go back to ``if you only 
get 150 bushels per acre instead of 250 bushels per acre . . . live 
within your means and don't expect the tax payers to make up the 
difference''. Yes, our agriculture is very important, but not to the 
tune of millions of dollars per county. There needs to be some checks & 
balances here. I'm would hope that you will, at least, check out our 
county and see how many people are on the government roll. I'm sure you 
will be amazed. Our county is pretty small, so just have one person 
check all of the farms, and anyone who received a subsidy check them 
out. Should only take 3 or 4 days. Now that would be money well spent. 
This has been going on for years, and needs an overhaul. So, please 
check out the Warren County government subsidy listing and then do a 
little research and maybe, you can find some reasons to stop some of 
these programs which are a burden on the average taxpayer.
    Thank you for your time.
                                 ______
                                 
                         Comment of Shawn White
    Date Submitted: Friday, May 18, 2012, 12:53 p.m.
    City, State: Montpelier, VT
    Occupation: College Professor/Math Tutor
    Comment: Thank you for allowing me the opportunity to give comments 
on the farm bill. I support funding that promotes sustainable 
agriculture, conservation programs, and nutrition programs. I believe 
this is important to the future of the country as well as the health of 
its citizens. Sustainable agriculture and conservation will help fight 
global warming, topsoil erosion and loss, and maintain (sometimes 
finite) water resources. Finding solutions to these problems is vital 
to preserving the economic future of this country.
    I support the Local Foods, Farms and Jobs Act (H.R. 3286), would 
like to see full funding conservation programs, and legislation to 
ensure that compliance with conservation programs is linked to 
enrollment in any new insurance subsidies.
    I also support full implementation the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236) and maintaining the EQIP Organic 
Initiative.
                                 ______
                                 
                        Comment of Valerie White
    Date Submitted: Friday, May 18, 2012, 7:29 p.m.
    City, State: Everett, WA
    Occupation: Sales
    Comment: I am so frustrated by the reports I read of cuts to food 
stamps program yet the subsidies continue. The system now in place is 
damaging our land, reducing the availability of healthy foods, and 
limiting more and more what options the future generations may have, if 
any.
    Please, please vote against subsidies and for the health of our 
nation.
                                 ______
                                 
                        Comment of Victory White
    Date Submitted: Friday, May 18, 2012, 12:46 p.m.
    City, State: Brooklyn Center, MN
    Occupation: Writer and IT Support Specialist
    Comment: I feel that the continued support of subsidies for big 
agribusiness, while cutting funding for small, local farms, and new 
start-up farms is not in the best interest of the American people. 
Small farms that work with sustainable, conservationist, organic 
methods are needed in our country. The American public has the right to 
make their own choices in the market on what foods they want.
    For too long big Agribusiness has been the only voice heard in 
Washington, D.C., as well as many state capitals on what foods will be 
grown, and during that time, diseases of every kind have risen. It is 
time to examine more closely the cause and effect of the foods we eat 
and it is more than time to look at viable alternatives to the 
chemically grown, nutritionally low grade food offered by the largest 
food producers in the world.
    Anytime you have only one or two companies producing any product it 
becomes a dangerous situation. It is even more dangerous when it is the 
food we depend on for life.
    I urge congress to do it's true duty and think of the American 
people, not the corporations which have been telling us all how and why 
to live for far too long.
                                 ______
                                 
                        Comment of Tamara Whited
    Date Submitted: Friday, May 18, 2012, 1:04 p.m.
    City, State: Indiana, PA
    Occupation: Professor
    Comment: As a private citizen I am in agreement with all of the 
organizations lobbying for generous measures toward organic and other 
sustainable agricultural practices to be included in the agriculture 
bill. We need and deserve a better food supply, soils that will 
continue to produce for generations ahead, and an agricultural system 
less dependent on fossil fuels and less polluting to waterways. If you 
are going to subsidize in any form, subsidize Organic and Sustainable 
practices.
                                 ______
                                 
                      Comment of Alton Whitehouse
    Date Submitted: Friday, May 18, 2012, 11:13 a.m.
    City, State: Cleveland, OH
    Occupation: Student
    Comment: I am particularly interested in seeing the government 
increase their support of small scale, local or family owned meat 
producers. As it stands, legislation and regulation make it extremely 
difficult for small meat producers to have their goods processed, 
mostly because Federal regulations make operating a processing facility 
equipped to handle small scale intake prohibitively costly.
    Support local meat by adjusting your policy to take into account 
the importance, for health, food safety and local economies, by 
fostering rather than stifling the establishment of smaller processing 
facilities.
                                 ______
                                 
                       Comment of Judy Whitehouse
    Date Submitted: Friday, May 18, 2012, 5:33 p.m.
    City, State: Phoenix, AZ
    Occupation: Retired LPGA Golf Teacher
    Comment: Nothing is more important to our future than the integrity 
of our food, air, and water. That requires transparency in production 
methods, chemical use, genetic modification, and crop diversity and 
rotation. The best way to achieve this globally is to removed seed 
patents and monopolies, subsidies for huge agribusiness, and restore 
local control of food production and processing.
                                 ______
                                 
                       Comment of Nikki Whiteley
    Date Submitted: Friday, May 18, 2012, 7:51 p.m.
    City, State: Colorado Springs, CO
    Occupation: Graduate Student and Research Assistant
    Comment: When forming agriculture policy, our country needs to 
support sustainable non-GMO organic farming, living soils, and a clean 
environment. Policies should also support biodiverse agriculture free 
of chemicals that destroy beneficial insects.
                                 ______
                                 
                      Comment of Pauline Whiteman
    Date Submitted: Friday, May 18, 2012, 8:13 p.m.
    City, State: Aromas, CA
    Occupation: Retired Postal Clerk
    Comment: So many citizens are experiencing side effects to GMO 
foods including myself. We need organic farming in order to protect the 
health of our people. Please be aware of how many your bill will effect 
if it does not provide for natural farming.
                                 ______
                                 
                        Comment of Erin Whitford
    Date Submitted: Friday, May 18, 2012, 2:41 p.m.
    City, State: San Diego, CA
    Occupation: Self-Employed
    Comment: Freedom of food choice is becoming a big issue for a 
growing number of people in America. As more people wake up to the 
inherent dangers of processed foods, GM crops and overuse of 
antibiotics, hormones and pesticides in our food supplies I believe it 
is imperative that we answer the call of Manifest Destiny by improving 
and expanding our viable farming options.
                                 ______
                                 
                   Comment of Pamela Whiting-Broeder
    Date Submitted: Friday, May 18, 2012, 2:22 p.m.
    City, State: Encinitas, CA
    Occupation: Retired
    Comment: Our family is really angry that U.S. Agriculture Policies 
are lazily influenced by the very corporations that need reform. We're 
angry that GMO's are not labeled! We're very angry that Big Ag controls 
policy. We don't want pesticides and cancerous fertilizers and GMO's in 
our food supply. Smaller Organic Farms are bullied. Factory farming is 
ruining the food supply. Monsanto is way too involved in the AG 
Department; a huge, huge conflict of interest. It's got to stop. We 
don't want to eat Monsanto's Roundup which is in just about everything. 
It's unbelievable that You would allow this. Disgusting. It's no wonder 
we're all dying of cancer. It's Your fault! Damimt, Label it!
    U.S. food and agricultural policy must focus on adopting best 
agricultural practices that put the Health of its citizens, the land 
and the livelihood of farmers and farm workers over the interests of 
industrial agriculture lobbyists.
                                 ______
                                 
                        Comment of Glenn Whitlow
    Date Submitted: Friday, May 18, 2012, 6:54 p.m.
    City, State: Truckee, CA
    Occupation: HVAC/R Technician
    Comment: GMO products need to be labeled--Period! The consumers are 
asking for it, it is the seed producers that are fight it. I say label 
it and let the free market say which one consumers will buy. If they 
buy the GMO food, then the market has spoken. The seed producers 
(namely Monsanto) fear that if the non-GMO grains, fruits, and 
vegetables win, then no one will buy their seed. That is a valid 
outcome in a market economy--there are winners and losers. The 
government should require the labeling so the public is informed and 
can decide for themselves. An informed public should be what America is 
all about.
                                 ______
                                 
 Submitted Statement by Art Whitman, President, Northeast Ag and Feed 
                                Alliance
    Thank you for the opportunity to provide input into development of 
the 2012 Farm Bill. The Northeast Ag and Feed Alliance is an 
association of nearly 300 individual livestock feed manufacturers and 
distributors located throughout the Northeast including New York and 
including New England. Our members manufacture feed for livestock and 
pets throughout the Northeast and include family owned businesses with 
single mills as well as publicly traded companies conducting business 
across several continents.
    Dairy farming directly supports nearly 150,000 jobs in the 
Northeast through milk production and processing. Federal policy needs 
to be sensitive to the varied scale of commercial milk production in 
the Northeast (from six cows to several thousand cows per farm), the 
diverse production practices employed by farmers as well as regional 
variation in dairy processing infrastructure. Dairy pricing reform is 
of utmost importance to reduce the volatility experienced by the dairy 
industry for the past several years. The hard work conducted by many 
producer groups to develop outlines for various margin insurance 
programs coupled with a market stabilization structure is commendable 
and has provided several options for meaningful reform. To meet 
budgetary criteria for Federal backing any new developments for dairy 
pricing will need to address the highly sensitive issue of market 
supply.
    Many programs developed as part of the 1996, 2002 and 2008 Farm 
Bills and administered through USDA Rural Development have provided 
significant resources to the dairy industry to develop new products and 
markets and to provide producer technical assistance. Rural Business 
Enterprise Grants, Value-Added Producer Grants and Agricultural 
Innovation Centers have proven their value through educational programs 
for improved business and production practices and support for fledging 
dairy based businesses. Federal support of innovative producers through 
these programs has created increased processing infrastructure and 
expanded markets for agricultural products. As university extension 
systems have been reduced the technical assistance available through 
USDA RD funded projects is essential to producers facing the challenges 
of intergenerational transfer, business expansion or diversification.
    Farms have significant energy demands for production and processing 
of food. The Rural Energy for America Program and the Biomass Crop 
Assistance Program provide funding to assist farms in the development 
of dispersed electricity generation, conservation plantings that 
provide biomass, and electricity generation as a means for diversified 
farm income. The benefit of farm based power generation extends far 
beyond the farm community as these projects create jobs in rural areas 
and reduce dependence on non-renewable energy sources. Often the 
funding provided by USDA RD is the final component that allows the 
project to go forward in an economically feasible manner.
    In the heavily populated Northeast with abundant rainfall, Federal 
land conservation and water quality programs are especially important. 
Funding provided through the Farm and Ranch Land Protection Program 
assures access to quality land for future generations of farmers. The 
Environmental Quality Incentives Program is essential in assisting 
farmers with land management practices to minimize water quality 
impacts. Federal provisions to provide conservation funding to 15 
historically under-served states (many in the Northeast) is vital as 
the basis for programs that routinely experience demand that far 
outstrips capacity. These programs are increasingly important with 
continued developments in water quality regulatory criteria.
    Crop insurance programs have made substantial headway over the past 
twenty years to be useful to a wide variety of farmers across diverse 
geographical and climatic conditions. Continued improvements to crop 
insurance programs should address ease of application, value of 
policies, and worth to farmers with varied markets for their crops. For 
example, the impact of the loss of even as little as 20% of a forage 
crop has a much more significant impact on income for a dairy farmer 
who must maintain a continuous pipeline of animals in all stages of 
maturity and production than for a farmer selling forages.
    The Northeast Ag and Feed Alliance recognizes the importance of our 
land-grant university system for the education of future producers and 
research for new practices and products. Funds provided through the 
Sustainable Agriculture Research and Education program, the 
Agricultural and Food Research Initiative and the National Institute of 
Food and Agriculture are critical to the on-going development of new 
techniques and technology for use by producers and processors of food.
    The support of Northeast farmers through a myriad of federally 
supported programs, many carried out in partnership with states and 
private entities, plays a vital role in the on-going production of food 
across the country to meet the needs of a wide range of consumers. We 
are proud of the creativity and productivity of Northeast farmers and 
appreciate the support provided through many Federal programs. 
Expansion of some programs, and changes to others will further increase 
the ability of Northeast farmers to continue their role as producers of 
wholesome and nutritious food consumed across the United States.
            Respectfully,

Art Whitman.
                                 ______
                                 
                       Comment of Andrea Whitson
    Date Submitted: Friday, March 16, 2012, 10:39 a.m.
    City, State: San Jose, CA
    Occupation: Faculty for Hunger and Environmental Nutrition SJSU
    Comment: I am urging for proper funding for our organizations that 
are fighting hunger (SNAP, WIC, and others). Our communities have 
people with the need for these services greatly especially with this 
economy.
    I would also like to bring up the fact that we need more funding 
for organic farming techniques and sustainable farming methods. Our 
environment should be kept intact with these alternative practices.
                                 ______
                                 
                        Comment of Michael Whitt
    Date Submitted: Saturday, May 19, 2012, 8:20 p.m.
    City, State: Inverness, CA
    Occupation: Physician
    Comment: Please discontinue support for: ethanol (no product that 
has food value should be used for fuel), corn syrup and other unhealthy 
products, agribusiness (esp. cash crops like cotton and soy beans & 
mega-dairies. Support sustainable farms producing healthy food, organic 
milk etc. Thank you for considering my opinions.
                                 ______
                                 
                        Comment of Diane Whitten
    Date Submitted: Friday, March 16, 2012, 4:28 p.m.
    City, State: Schuylerville, NY
    Occupation: Community Nutrition Educator
    Comment: As a professional that educates community members at 
farmers' markets, I've seen the enormous growth over the past 10 years 
in the interest of consumers to eat locally produced foods. In the 
Washington/Saratoga county area, that means purchasing foods from small 
scale farmers. The farm bill needs to support small scale farms. I 
truly believe that ensuring the viability of diversified agriculture is 
a matter of national security as well.
    As a nutritionist, I also believe that the farm bill should include 
subsidies to fruit and vegetable farmers, especially those who sell to 
schools. The USDA wants schools to serve more fruits and vegetables, 
but the cost can be prohibitive. The farm bill could help keep 
producers in business while at the same time encouraging a connection 
between farms and schools to help our children eat healthier.
                                 ______
                                 
                      Comment of Linda Whittington
    Date Submitted: Friday, May 18, 2012, 1:30 p.m.
    City, State: Chula Vista, CA
    Occupation: Small Business
    Comment: Allowing all Americans access to better quality food 
products results in a healthier population which in turn brings down 
the cost of health care
costs . . .
                                 ______
                                 
                      Comment of Karen Whittredge
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Arlington, MA
    Occupation: Retired Teacher
    Comment: Please support organic farmers, especially the smaller 
ones, who are trying to provide us with healthy food. Also please be 
sure to require all foods to be labeled correctly included GMO. 
Monsanto has a stranglehold on independent, organic farmers. Its 
bullying ways should not be tolerated in a democracy. Please listen to 
us, the consumers who are looking to the health of future generations. 
I am not some radical--just an intelligent American who wants the best 
for our society. Thank you for your consideration.
                                 ______
                                 
                        Comment of Louise Wholey
    Date Submitted: Friday, May 18, 2012, 12:54 p.m.
    City, State: Saratoga, CA
    Occupation: Retired Home Food Gardener
    Comment: We have to reduce Big Ag subsidies. It is ridiculous to 
continue to support the bad food that creates high medical expenses. 
Incentives to get more small farms growing food in the plains states 
might help keep the economy there from collapsing. We have to start 
somewhere! Please help!
                                 ______
                                 
                         Comment of Jean Wiant
    Date Submitted: Friday, May 18, 2012, 4:09 p.m.
    City, State: Philipsburg, PA
    Occupation: Director of Religious Education
    Comment: I grew up on a family farm in PA and am appalled at the 
state of animal misery on factory farms. Animals have a right to a life 
where they can breathe fresh air, enjoy the outdoors, ruminate or eat 
grass, and be treated humanely. I am very disappointed that the 
corporate farms have taken over this country and mistreated animals to 
the extent that they are. Please vote to stop this awful state.
                                 ______
                                 
                        Comment of Daniel Wiberg
    Date Submitted: Friday, May 18, 2012, 1:01 p.m.
    City, State: Goose Creek, SC
    Occupation: Retired Military
    Comment: How about some common sense when it comes to farm bills. 
The closest most politician have come to farms is during ``photo'' 
opportunities. The ISO, Invasive Species Order is one where common 
sense has totally been forgotten and stupidity reigns supreme. If you 
would care to talk about it just e-mail me.
                                 ______
                                 
                        Comment of Volinda Wick
    Date Submitted: Sunday, May 20, 2012, 11:01 a.m.
    City, State: St. Cloud, MN
    Occupation: Student
    Comment: I am concerned with the new wave of ignorance and lack of 
foresight I am witnessing in our governmental handling of the 
production and funding of food sources in the U.S. and other countries 
as well. The future of ourselves and the critical future of our 
children and grandchildren is at the mercy of greed.
    The organic research funding and the support for Beginning Farmers 
are important, we do not want these to be cut from the budget. The 
subsidized insurance program will allow giant ``commodity farmers and 
insurance companies'' tax money while destroying the land, soil, water 
and environment! Stop this insanity. These subsidies to agribusiness is 
a landslide of poison from large chemical and will eventually be the 
demise of us all in the pursuit of money, which will not buy health.
    The least you could do is place limitations on crop insurance 
subsidies and re-attach soil erosion and wetland conservation 
requirements to these insurance programs.
    I am disgusted with the difficulty of obtaining truly healthy food 
for me and my family. I would think as legislatures you would be 
concerned for your own future and that of your own family and the 
society as a whole. I and many, many others are watching how the voting 
goes and who will stand up for health rather than greed.

Volinda Wick.
                                 ______
                                 
                        Comment of Allen Wickham
    Date Submitted: Sunday, May 20, 2012, 12:28 a.m.
    City, State: Molalla, OR
    Occupation: Software Developer/Gardener
    Comment: I urge you all to think about sustainability, about giving 
our children quality healthy food by fostering organic farms and 
practices, about supporting the small farmers and all the people they 
support in kind, and by supporting the conservation of our precious 
land and water resources. In an era of trying to wean ourselves of 
petroleum, let's try to wean ourselves off of petroleum-based 
pesticides, herbicides, and fertilizers. Let's feed ourselves good 
food!
                                 ______
                                 
                         Comment of Debra Wicks
    Date Submitted: Sunday, May 20, 2012, 8:04 a.m.
    City, State: Jersey City, NJ
    Occupation: Civil Servant
    Comment: There should be transparency showing where all the food 
products on the grocery shelves that are not purchased ends up. And 
remedy that situation to a public food stock that is accessible. An 
example being healthy reduced priced products. Why are there far more 
stocked goods than package or non-packaged produce. I would like to see 
farms that are owned by non-Caucasians increase. The schools lunch 
program is a fine example of good legislation.
                                 ______
                                 
                        Comment of Meg Wickwire
    Date Submitted: Friday, May 18, 2012, 4:17 p.m.
    City, State: Concord, MA
    Occupation: Teacher
    Comment: Please fight as hard as you can to protect children and 
adults from the ill effects of massive food companies. Small and 
organic farmers serve us all so much better! I am a mother and a breast 
cancer survivor. I am done pretending chemically grown and processed 
food doesn't matter!
    Thank you for any help you can legislate.
                                 ______
                                 
                       Comment of Evelyn Widhalm
    Date Submitted: Friday, May 18, 2012, 2:17 p.m.
    City, State: Missoula, MT
    Occupation: School Counselor
    Comment: It's time for agriculture subsidy reform. The corporate 
conglomerate ag businesses `farm' the government programs and make 
millions off the tax payers. This must stop.
                                 ______
                                 
                       Comment of John Wiercioch
    Date Submitted: Sunday, May 20, 2012, 5:32 p.m.
    City, State: Roanoke, VA
    Occupation: House Painter
    Comment: It would be inspiring to see a bill not based upon the 
power of Big Ag lobbyists whose agenda is to promote their employers 
profits. I challenge you to show your integrity and support small local 
farms in this bill. An industry that creates pink slime, GMO's laced 
with insecticides (that are not safe when objectively independently 
tested), and Factory farms full of antibiotic pumped, tortured animals 
that are treated as if they are not living beings--these are not the 
ways I want my tax monies spent.
                                 ______
                                 
                       Comment of Christine Wight
    Date Submitted: Friday, May 18, 2012, 7:56 p.m.
    City, State: Rockport, MA
    Occupation: Educator
    Comment: Government let go of controlling our food sources. Banish 
Monsanto's underhanded efforts to take over the planet's food 
production as though they invented it and are responsible for what is 
on my plate! It is unreasonable for me to need to defend my right to 
healthy choices! I fire Monsanto from feeding me! I choose to go 
elsewhere for my food!
                                 ______
                                 
                         Comment of Ken Wilbur
    Date Submitted: Monday, March 19, 2012, 7:15 p.m.
    City, State: Abilene, TX
    Occupation: Owner of Dog Kennel
    Comment: It is time to stop the assistance programs, subsidies are 
just another form of assistance.
    Grain prices are high, as is food for humans and animals . . . .
    If you do go against the people and give these people checks for 
not producing, at least so not allow them to lease the land out for 
hunting . . . the taxpayer has paid for this land, it should be made 
available to the public free for hunting . . .
    You want to hear a cry from rich land owners, make that happen . . 
. the small family farmer will go along with it . . .
                                 ______
                                 
                        Comment of Maya Wilcher
    Date Submitted: Saturday, May 19, 2012, 4:55 p.m.
    City, State: Sadsbury, PA
    Occupation: Student
    Comment: Please write a fair farm bill! For far too long, corporate 
monopolies have dominated the food system. It is unjust for the 
consumers and unjust for small traditional farms. Now is the time to 
redefine our agriculture industry, and stop catering to the greed and 
money of big business.
                                 ______
                                 
                       Comment of Dorothy Wilcox
    Date Submitted: Friday, May 18, 2012, 9:53 p.m.
    City, State: Youngstown, OH
    Occupation: Retired
    Comment: I grew up on a family farm. We had chickens, a pig, a milk 
cow, cattle, a big garden; most of our food came from this farm--good 
organic food! As a result we were healthy, and enjoyed the hard-work 
ethic that comes from all the chores and farm life.
    Corporate farms do not provide such things. Rather the land is 
forced to produce as much and as fast as it can without little thought 
of resorting what was taken from the soil. The produce and crops aren't 
Real food; it's genetically engineered or modified food with many 
health consequences from consuming it. And there is no seed; therefore, 
it creates a total dependency upon a company to provide seed to 
farmers. If there was ever any farming system that could create World 
Famine; in my estimation, it would be Genetically Engineered Food, if 
one could even identify it as ``food.''
                                 ______
                                 
                         Comment of Lynn Wilde
    Date Submitted: Friday, May 18, 2012, 2:41 p.m.
    City, State: Salinas, CA
    Occupation: Retired Teacher
    Comment: Living in Salinas, I see how important agriculture is to 
the economy and how poor the workers are who bring food to the world. 
I've seen how laws have protected the safety of food and workers. We 
must protect safety gains, help organic farms, end subsidies for food 
crops being used for fuel, feed the poor who work in our fields. Farm 
policies that encourage family farms, enrich the land, cut fertilizer 
and pesticide costs, protect bees, restore wind brakes, bring down the 
cost of organics and grow our quality food supply will make the U.S.A. 
strong. People first, not profits.
                                 ______
                                 
                         Comment of Flo Wilder
    Date Submitted: Friday, May 18, 2012, 11:56 a.m.
    City, State: Hancock, ME
    Occupation: Bookkeeper
    Comment: Please stop the subsidies to corporations which produce 
the so-called food which is slowly killing us. Allocate the USDA 
resources toward producing safe, organic healthy food.
    Thank you.
                                 ______
                                 
                         Comment of Eric Wilds
    Date Submitted: Friday, May 18, 2012, 2:55 p.m.
    City, State: Palmetto, FL
    Occupation: Fitness Trainer
    Comment: Small family farms are our best option for good nutrition. 
Good nutrition is a key component needed for a healthy populace. A 
health populace is necessary for a strong America. Be a patriot and 
protect small farmers.
                                 ______
                                 
                        Comment of Alan Wilhite
    Date Submitted: Friday, May 18, 2012, 1:13 p.m.
    City, State: Austin, TX
    Occupation: Performer
    Comment: I urge you to support truth and quality instead of 
corporate profits. Big agribusiness is making our citizens sicker 
earlier than ever, filling our hospitals and creating a massive 
economic drain on our country. We must grow our food organically, with 
well cared for soil, not synthetic fertilizers and pesticides. Do what 
is right for all our citizens, not just big business and your own 
pocket. Serve the public.
                                 ______
                                 
                         Comment of Gail Wilke
    Date Submitted: Sunday, May 20, 2012, 6:57 p.m.
    City, State: Sunland, CA
    Occupation: Retired Teacher
    Comment: Any subsidies should go to fruit and vegetable growers, 
not to large commercial growers. I believe many of your subsidies even 
go to land owners, who live nowhere near their farmland.
                                 ______
                                 
                      Comment of Chalice Wilkerson
    Date Submitted: Friday, May 18, 2012, 3:32 p.m.
    City, State: Chicago, IL
    Occupation: House Painter and Organic Gardener
    Comment: Please consider an organic bill so that producers and 
consumers are both able to assess their products in a way that is 
healthy for farmers and Americans. I am quite leery about the 
continuing influence of Big Ag on our policy makers. The track record 
of some of these corporations shows they will cheat, lie, fudge 
scientific reports, leave out certain data, and go to court to keep 
consumers from knowing what they are buying to eat. If we are so free-
market, we need a free-market in labeling too.
                                 ______
                                 
                        Comment of Samuel Wilkes
    Date Submitted: Saturday, May 19, 2012, 12:47 a.m.
    City, State: Little Rock, AR
    Occupation: Political Campaign Supporter
    Comment: To whom it may concern,

    The new farm Bill must be written with extreme consideration for 
human consumers and Organic Farmers here in the United States. We can 
no longer cater to the interests of Industrial Farming and the likes of 
Monsanto, who seem to want to get rid of Organic Farming altogether.
    Whereas I understand the need to Industrial Farming, as it is a 
tariffed export, I also know that we as Citizens, unaffiliated with 
Industrial Farming, desire reasonably price, extremely healthy 
Organically Grown (by USDA Standards) Foods. They are healthier for us, 
for our progeny, and at this point are far too expensive for the 
average Citizen. We should have a right to foods grown without toxic 
pesticides and herbicides, to foods that draw nutrients from nutrient 
rich soil and not depleted soil that has to be fertilized every year 
with outside elements like Nitrogen, Calcium, and Potassium.
    Organic Farmers need to be protected in this farm bill. They need 
to be protected from companies like Monsanto who have been successfully 
suing them for the better part of 15 years, and whose money and power 
has been used to destroy them. And, we need protection for these 
farmers from Genetically Modified Pollen, Herbicide, and Pesticide 
drift and pollution of the very Aquifers that Organic Farmers rely 
upon, because, afterall, once this water is used, and pollen drift 
occurs, these farmers can no longer call their products Organic or GMO-
Free.
    Please stand up for the people and not Agri-Business and the Money 
and Power they have to influence your decisions. Be Politicians of 
Integrity and Please do not sell out for your own personal gain.
    And, do this please, look up on Google, ``The World's Worst 
Company'' . . . the result will be St. Louis based Monsanto. Monsanto 
is even taking advantage of your very own constituents by genetically 
modifying their patented seeds, such that the see is not viable for 
planting the next year, costing industrial-sized farms much more per 
year, taxing our already subsidized Agricultural system even further.
    Finally, Organic Farmers should also receive subsidies, since after 
all, not only are they attempting to feed us, but they are doing so in 
very healthy ways.
    Thank you sincerely.
                                 ______
                                 
                       Comment of JoAnne Wilkins
    Date Submitted: Friday, May 18, 2012, 12:21 p.m.
    City, State: Fairfield, IA
    Occupation: Programmer
    Comment: The farm bill should highly support agriculture that is 
sustainable, healthy for humans and the land. The farm bill should 
support organic, sustainable practices.
                                 ______
                                 
                       Comment of Shannon Wilkins
    Date Submitted: Friday, May 18, 2012, 12:57 p.m.
    City, State: Heathsville, VA
    Occupation: Commercial Fishing
    Comment: Local organic and Non-GMO foods are important to me. Local 
farm food producers need to be supported not crushed by industry (i.e., 
Monsanto).
                                 ______
                                 
                       Comment of Carol Wilkinson
    Date Submitted: Monday, April 16, 2012, 11:04 p.m.
    City, State: Winchester, MA
    Occupation: Self-Employed Legal Assistant
    Comment: I am concerned with genetically modified food and would 
like all produce sold in the U.S. to be labeled as ``genetically 
modified'' if there has been Any modification at all.
    I also believe all produce sold in U.S. should state its country-
of-origin.
    We label organic food now so I and other family members would 
request these two items be labeled as well.
    Thank you.
                                 ______
                                 
                       Comment of James Wilkinson
    Date Submitted: Saturday, May 19, 2012, 7:56 p.m.
    City, State: North Bennington, VT
    Occupation: Writer
    Comment: It is long since time to end the public subsidies for food 
whose production is destroying soils, waterways, aquifers, and species 
integrity (via GMOs) and whose consumption has led to an epidemic of 
obesity and diabetes which will bankrupt the entire country.
                                 ______
                                 
                        Comment of Julianne Will
    Date Submitted: Friday, May 18, 2012, 3:38 p.m.
    City, State: Fort Wayne, IN
    Occupation: Marketing Consultant, Writer
    Comment: Please be sure that any legislation provides for small, 
organic farms where non-GMO food is raised, animals are without cages 
and hormones, and the food produced will not cause the inflammation 
that is becoming epidemic in our country.
                                 ______
                                 
                        Comment of Chris Willey
    Date Submitted: Saturday, May 19, 2012, 8:46 a.m.
    City, State: Warrensburg, MO
    Occupation: Retired
    Comment: Please support healthy food, which translates to a healthy 
population and environment. Support small farmers and sustainable 
agriculture. If you are considering farm subsidies, either healthy food 
should be subsidized to make them more competitive, or the subsidies 
for mega crops like corn, soy, and wheat should be cut back or 
eliminated. Thank you.
                                 ______
                                 
                       Comment of Alice Williams
    Date Submitted: Friday, May 18, 2012, 2:57 p.m.
    City, State: Georgetown, SC
    Occupation: Retired Teacher, Small Farmer
    Comment: Please don't weaken the help for new small farmer entry. 
The corporations seem to get all the ``welfare'' they need in the name 
of farm subsidy. People shame the poor for their use of food stamps, 
but with this depression they are calling ``the Great Recession'' folks 
without living wage jobs need help.
    In the great depression many folks went back to small farms to work 
and survive and we need to make sure this is still an option for the 
current generation.
                                 ______
                                 
                       Comment of Amanda Williams
    Date Submitted: Friday, May 18, 2012, 11:44 p.m.
    City, State: Midvale, UT
    Occupation: Food Blogger/Garden & General Horticultural Consultant
    Comment: It is time for us to recognize and accept accountability 
for the far-reaching effect of corn and soy subsidies on our health and 
the obesity epidemic in America. We need to somehow loosen the 
stranglehold of corporate farming and special interest food lobbies--
the dairy, meat, corn and soy industries, we could see that so many of 
the problems our children and families are facing today are the direct 
result of those lobbyists efforts. We are fat because we are being fed 
cheap corn, soy, dairy and meat, and farmers trying to produce 
vegetables, fruits, and whole grains in a manner consistent with long-
term ecosystem health cannot compete with the price of processed food 
and soda.
    The security and safety of our nation are at risk when healthy and 
local food are unavailable and small farmers are pushed out of the 
market. The health of our land, the ability to grow food in perpetuity, 
is increasingly more difficult as greater numbers of chemicals become 
necessary to combat superbugs and to subsidize fertility from 
drastically depleted soils. The farm bill should support real farms, 
farms that care not only for their livelihood, but for the Earth and 
the crops that provide it, farms using sustainable practices providing 
food that brings health and not sickness to its consumers.
    Please encourage and support changes to the farm bill that will 
eliminate subsidies to the big lobbyists--corn, soy, Monsanto, meat and 
dairy industries, Cargill, ADM, Smithfield. Even the playing field. 
Support organic, biodynamic, and local farm subsidies and supports.
                                 ______
                                 
                     Comment of Bernadette Williams
    Date Submitted: Friday, May 11, 2012, 11:46 p.m.
    City, State: Alexandria, VA
    Occupation: Software Engineer
    Comment:

  <bullet> America needs more local farming efforts.

  <bullet> Focus legislation on developing the nation's network of 
        small and organic farms.

  <bullet> Instead of farm subsidies going toward very large farming 
        ``factories'', grants and tax incentives should be made 
        available to cities and communities to implement local, 
        sustainable urban agriculture frameworks.

  <bullet> Encourage seed saving programs and provide subsidies to 
        farmers who plant heritage crops in order to promote biological 
        diversity.

  <bullet> Provide training and subsidies to farmers who substantially 
        decrease the amount of pesticides used on our nation's crops.

    Thank you so much for your time.
            Sincerely,

Bernadette Williams,
Alexandria, Virginia.
                                 ______
                                 
                      Comment of Beverly Williams
    Date Submitted: Friday, May 18, 2012, 12:03 p.m.
    City, State: Arlington, MA
    Occupation: Retired English as a Second Language Teacher
    Comment: In this technological society, we should be able to have 
our food properly labeled and safe for us elders and our grandchildren. 
Please keep the consumers, and not agribusiness, as your priority. 
Thank you.
                                 ______
                                 
                       Comment of Carol Williams
    Date Submitted: Sunday, May 20, 2012, 11:30 a.m.
    City, State: Roan Mountain, TN
    Occupation: Artist
    Comment: Our genetically altered pesticide laced agribusiness 
myopic profit-only orientation is killing Americans--obesity, diabetes, 
cancer, dumbing down of intelligence. It is imperative we support 
measures that enhance our local and organic farms and the life force 
and nutritional value of our food. Why are all my grocery store garlic 
cloves from China when they can be grown right here in TN? Support our 
local farmers trying to grow organic plants and humanely raised pasture 
animals. We are what we eat.
                                 ______
                                 
                       Comment of Cyndy Williams
    Date Submitted: Friday, May 18, 2012, 9:21 a.m.
    City, State: Crozet, VA
    Occupation: Accountant
    Comment: It is most important to support our farmers & protect a 
clean food supply. The small farmer is the back bone of our country, we 
need more access to small farm produce that is healthy & local.
    Thank you.
                                 ______
                                 
                         Comment of D. Williams
    Date Submitted: Sunday, May 20, 2012, 3:22 p.m.
    City, State: Asheville, NC
    Occupation: Land Sales and Development
    Comment: Could we protect small family farmers, organic growers and 
responsible farm practices instead of lining the pockets of all 
connected to big ``agribusiness'' please?
    The corporatocracy that rules us for only their benefit has done 
enough damage without continuing to influence our food supply in the 
irresponsible and greedy, malicious way they do now. Enough of this 
nonsense.
                                 ______
                                 
                         Comment of D. Williams
    Date Submitted: Saturday, May 19, 2012, 3:45 p.m.
    City, State: Westminster, CA
    Occupation: Educator
    Comment: Dear Lawmakers: You must support Organic farmers and 
eaters. Our patience, as taxpaying voters, has run out. Encourage real 
food and our access to it, now.
            Sincerely,

D. Williams.
                                 ______
                                 
                       Comment of Debora Williams
    Date Submitted: Friday, May 18, 2012, 5:45 p.m.
    City, State: Drain, OR
    Occupation: Unemployed
    Comment: Please stop the Frankenstein food with toxic chemicals. 
The chemical soaked fruits and vegetables are poisoning humans and 
animals. They are destroying the soil and poisoning the animal life and 
livestock. Did you know that the GMO corn and wheat are making 
livestock sterile? And the saturation of Roundup is killing all the 
beneficial bugs, (including honeybees). Please give the American people 
back their vote and jobs and health! Please give us back our country! 
Please.
            Sincerely,

Debora Williams.
                                 ______
                                 
                       Comment of Elsie Williams
    Date Submitted: Wednesday, May 09, 2012, 3:44 p.m.
    City, State: Houston, TX
    Occupation: Food Pantry Director
    Comment: SNAP should raise the amount of food stamps seniors 
receives because many have special diets and need to buy food that is 
not available through at food pantries.
                                 ______
                                 
                       Comment of Emelie Williams
    Date Submitted: Tuesday, May 08, 2012, 11:40 p.m.
    City, State: Reno, NV
    Occupation: Communications and Marketing Coordinator
    Comment: I urge you to vote for a fully-funded farm bill complete 
with feeding programs that help those who need food. This group of 
people are the last to recover from the 2008 recession and these 
programs ensure that they have nutritious food sources in their and 
their families lives. We are the greatest nation on Earth and no one in 
it should ever go hungry. Thank you.
                                 ______
                                 
                       Comment of Jacki Williams
    Date Submitted: Saturday, May 19, 2012, 11:35 p.m.
    City, State: San Luis Obispo, CA
    Occupation: Garden Designer
    Comment: No GMOs, support small farmers, quit subsidizing 
agribusiness and corporations.
                                 ______
                                 
                       Comment of Jenna Williams
    Date Submitted: Friday, May 18, 2012, 12:22 p.m.
    City, State: Saint Paul, MN
    Occupation: Communications
    Comment: Please put money into agriculture that creates healthier 
diets, limits the use of antibiotics on livestock, and helps support 
our environment. This is such an important bill for the future of 
America!
            Thank you,

Jenna.
                                 ______
                                 
                       Comment of Kelly Williams
    Date Submitted: Saturday, May 19, 2012 12:14 a.m.
    City, State: Apache Junction, AZ
    Occupation: Composite Materials Technician
    Comment: While I am not a current producer, I once was. I was a 
dairy farmer. I still have friends who farm. So I have insight into 
both sides of the issue. Honestly, corporations do not, and never will 
have any interest beyond profit.
    To wit, I believe that the following would be a very good start.

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Please understand that once America loses it's family farmers, 
America will not stand.
                                 ______
                                 
                      Comment of Penelope Williams
    Date Submitted: Friday, March 16, 2012, 9:00 a.m.
    City, State: Rockledge, FL
    Occupation: Retired Graphic Artist
    Comment: The U.S. government needs to encourage our small farmers 
especially organic farmers because now the corporations which control 
our food system are destroying our health with their toxic pesticides & 
herbicides and GMO foods. We as consumers need to know what is in our 
food and how it is grown.
    Corporations don't want us to know because they know we wouldn't 
buy it. The future of our country depends first on the fuel we give it 
to run it. The most important fuel we give ourselves is the food we 
eat. Let's stop fueling the wallets of corporations which are robbing 
us of our health wealth and awakening. Have the courage to stand up for 
what is right rather than caving into corporate greed at our expense. 
Thank you!
                                 ______
                                 
                      Comment of Precious Williams
    Date Submitted: Thursday, March 29, 2012, 5:16 p.m.
    City, State: Texarkana, AR
    Occupation: Community Based Education Program Director
    Comment: I encourage you to re-instate the Outreach and Assistance 
for Socially Disadvantaged Farmers and Ranchers (2501 Program) back 
into the 2012 Farm Bill and maintain its funding at $25 million 
annually. This education program has been very helpful to farmers and 
communities of Southwest Arkansas. SDF's are made aware of all USDA 
programs, receiving assistance in planning and production and we feel 
that it is one of the best program available to small and limited 
resource farmers. We really need this program. Therefore, I encourage 
our congressional leaders to support this program and socially 
disadvantaged farmers in Arkansas.
                                 ______
                                 
                        Comment of Sara Williams
    Date Submitted: Saturday, May 19, 2012, 11:00 a.m.
    City, State: Cherry Valley, CA
    Occupation: Laboratory Technician
    Comment: This country needs a better farming industry. Corn needs 
to stop being subsidized so its various products end up in foods that 
are unhealthy and are making this country obese. Small farmers need to 
be able to support themselves, not have to go into debt because large 
companies take control over every process of farming. The food grown 
needs to be more organic, not modified. Smarter farming practices need 
to be done like planting trees around fields for wind and soil 
protection, etc. So much needs to be improved.
                                 ______
                                 
                      Comment of Victoria Williams
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: Joshua Tree, CA
    Occupation: Songwriter
    Comment: I have MS and Hep. C and must eat organically and even if 
I wasn't sick I would still want to eat organically grown food. There 
is no reason for a man to put his body thru the trouble of pesticides.
                                 ______
                                 
                      Comment of Andrea Williamson
    Date Submitted: Friday, May 18, 2012, 10:57 p.m.
    City, State: Snoqualmie, WA
    Occupation: Landscape Designer
    Comment: I respectfully request that the government eliminate all 
agricultural subsidies, but especially for corn. I work hard to feed my 
family only local organic foods (when I can afford it) and I truly 
believe that processed food is the root of our country's health 
problems. By stopping the subsidies on corn, junk food will reflect its 
true cost and even the playing field for all food growers. Perhaps it 
will begin to improve the overall health of our nation. Thank you for 
your consideration.
            Respectfully,

Andrea Williamson.
                                 ______
                                 
                     Comment of Theresa Williamson
    Date Submitted: Sunday, May 20, 2012, 7:22 p.m.
    City, State: Cleburne, TX
    Occupation: Home Gardener/Homemaker
    Comment: I prefer to buy non-GMO food. That is why I grow heirloom 
seed. Presently, I have Rutger's tomatoes, Golden Bantam corn, lettuce, 
pattypan squash, pumpkins, watermelon, green peas, purple-hull peas, 
and potatoes growing so far.
    My assorted cross-bred chickens and white Chinese geese free range 
all over the backyard. I would like to get some goats or a cow, in the 
future, for milk and meat products and grass mowing. Also, I would like 
to get fruit and nut trees growing. We live on 1 acre. Just think about 
what other people could grow on an acre if they really thought about 
it.
    I think it is a waste to see huge lawns of just green St. Augustine 
grass. They could be growing their groceries instead all over our 
country.
                                 ______
                                 
                        Comment of Diane Willis
    Date Submitted: Saturday, May 19, 2012, 12:34 a.m.
    City, State: Nehalem, OR
    Occupation: Research
    Comment: I want my tax dollars to be used to subsidize food that is 
good for me and my community rather that subsidizing non sustainable 
food production.
                                 ______
                                 
                        Comment of Judith Willis
    Date Submitted: Thursday, May 10, 2012, 5:29 p.m.
    City, State: Gladstone, MO
    Occupation: Retired Administrative Assistant
    Comment: Cutting SNAP is so irresponsible! This is a terrible time 
for individuals and families who need assistance to survive. What are 
you thinking?! I know these are difficult times for all of us, but 
cutting the very life blood of the poor is unacceptable!
                                 ______
                                 
                         Comment of Paul Willis
    Date Submitted: Friday, May 18, 2012, 2:31 p.m.
    City, State: Comanche, IA
    Occupation: Pastor
    Comment: It is time to stop caring for only Big Ag and consider and 
start helping the little producer. The poisons being used by Industrial 
Farming are detrimental to the health and survival of our planet.
                                 ______
                                 
                        Comment of Penny Willis
    Date Submitted: Tuesday, May 08, 2012, 4:01 p.m.
    City, State: Orlando, FL
    Occupation: Retired
    Comment: How can you and I throw away the seniors who are in such 
dire need. A group (150+) of doctors decided rather than hospitalizing 
seniors who were in trouble with nutrition, they would try getting them 
20 lbs. of food within 24 hours and find out if they needed more before 
30 days. Of 73 individuals so far, not one has had to go to the 
hospital! Be smart and Help these seniors the way You Can.
                                 ______
                                 
                         Comment of Walt Willis
    Date Submitted: Tuesday, May 08, 2012, 3:51 p.m.
    City, State: Orlando, FL
    Comment: There are 130,000 seniors in Orange and Seminole counties 
in desperate need of food. How did you and I let this happen? Don't let 
it get worse. In these economic times it could even be your family or 
the ones next door. With all the food available let's get it to the 
ones already in trouble. You can do it, if you wish!
                                 ______
                                 
                      Comment of Margaret Willits
    Date Submitted: Friday, May 18, 2012, 10:17 p.m.
    City, State: Sonora, CA
    Occupation: Botanist
    Comment: Soil is a very important resource. It can be quickly lost 
and takes a lot of time to build. Please ensure that anyone that 
benefits financially from this bill is caring for the soil. Soil loss 
pollutes streams and reduces the water holding capacity.
    Also, in the long term it is important to find ways to grow crops 
more sustainably and with fewer oil-based inputs. Support research in 
organic farming and other methods that conserve and build soil.
    Support those with diverse crops. Just as we know not to put all 
our investments into a single item, with the more variable climate, it 
is important to diversify. Offering crop insurance without attention to 
what farmers are doing allows them to take risks with taxpayer dollars. 
Single crops and genetically uniform crops offer little resilience to 
perform in times of variable and more extreme weather.
    Agriculture is a very important base for this country. Consider the 
long-term well being of all citizens when making your decisions.
    Thank you.

Margaret Willits.
                                 ______
                                 
                      Comment of Yolanda Willmore
    Date Submitted: Sunday, May 20, 2012, 8:33 a.m.
    City, State: Sleepy Hollow, NY
    Occupation: Housewife
    Comment: I would like Congress to support organic/sustainable 
farming. Eliminate the use of harmful pesticides and genetically 
modified products and support practices that protect animal well-being. 
It would also be beneficial to make organic products accessible to 
families at the lower end of the economic spectrum and better educate 
as to the benefits of a healthy diet.
                                 ______
                                 
                        Comment of Rachel Wills
    Date Submitted: Friday, May 18, 2012, 7:38 p.m.
    City, State: Norcross, GA
    Occupation: Information Technology
    Comment: As an American consumer, I am concerned about my health, 
the reduced quality of the food available for purchase, and the 
sustainability of the environment and food production for generations 
to come. I am writing to voice my support for organic farming, local 
farming, and the family farms that the country was built on. Allowing 
large agribusiness to thrive on large subsidies, while family farms 
suffer and the breadbasket of our country is slowly poisoned for our 
grandchildren to have to deal with, is not the way to manage the 
nation's food supply. Please vote in the interest of families, 
individual citizens, and future generations; rather than in the 
interest of large agribusiness that profits at our expense.
    I support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs . . .

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Thank you.

Rachel Wills.
                                 ______
                                 
                        Comment of Sean Willson
    Date Submitted: Friday, May 18, 2012, 2:45 p.m.
    City, State: North Hollywood, CA
    Occupation: Musician
    Comment: We need safer farming practices, and a focus on organic. 
Please get rid of Monsanto, we all know they are evil and the biggest 
threat to real farming, and farmers.
                                 ______
                                 
                        Comment of Ariel Wilson
    Date Submitted: Tuesday, May 15, 2012, 5:14 p.m.
    City, State: Bakersville, NC
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 50-150 acres
    Comment: A $36 million cut to SNAP is not the way to go. The 
Committee should focus on writing a farm bill that creates economic 
opportunity and improves access to healthy, affordable food for all 
Americans.
                                 ______
                                 
                        Comment of Connie Wilson
    Date Submitted: Friday, May 18, 2012, 3:52 p.m.
    City, State: Cabot, AR
    Occupation: Retired
    Comment:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    We can not allow organic research funding to be cut. We need full 
funding to support Beginning Farmers. Please do not let the cuts stand!
    Let us instead go to work on good investigative work and preventive 
measures against fraud and abuses that hurt everyone.
    Real reform towards healthy organic farming is the way we should be 
heading and getting rid of GMO foods. The public do not want these food 
products. Work for us please!
    I support my local farmers. Our farmers are still the backbone of 
this country.
    Thank you
                                 ______
                                 
                        Comment of David Wilson
    Date Submitted: Thursday, May 17, 2012, 10:36 a.m.
    City, State: Leasburg, MO
    Comment: U.S. Govt. should hold any recipient of Federal farm aid 
to high standards for land management. Most farmers want to do the 
right thing, but when someone does not, it harms us all. I don't want 
upstream farmers' actions damaging my bottomlands, especially when he 
is getting Federal farm aid.
    Every farmer should be able to describe his conservation management 
plan in order to qualify for farm assistance.
                                 ______
                                 
                       Comment of Deborah Wilson
    Date Submitted: Friday, May 18, 2012, 3:25 p.m.
    City, State: Springfield, MO
    Occupation: Artist/Teacher
    Comment: Please protect small, family farms, especially organic 
growers and farmers. Allow the people to make our own choices as to 
whether we want to buy raw milk, etc. Please stop groups like Monsanto, 
who are destroying the seeds and feeding our people foods that are 
shown to be harmful. These foods need to be labeled, and actually 
banned (like they are in other countries). The USA needs to raise it's 
standards and stop allowing big corporations to push them around.
                                 ______
                                 
                       Comment of Delilah Wilson
    Date Submitted: Tuesday, May 15, 2012, 10:01 a.m.
    City, State: Pasadena, CA
    Occupation: Student
    Comment: As one of the richest countries in the world, we should be 
able to feed seniors and people who need help. Politicians got free 
health care and salary beyond the normal person. I think politicians 
should work in homeless shelters 20 hours a week and see how it really 
is out there for people. I think they should roll up their sleeves and 
pitch in instead of seating behind their desks.
                                 ______
                                 
                        Comment of Devin Wilson
    Date Submitted: Friday, May 18, 2012, 10:26 a.m.
    City, State: Baltimore, MD
    Occupation: IT
    Comment: Esteemed members of Congress,

    It is time to radically re-think our outdated, ineffective, and 
damaging farm bill. We can no longer stand by while subsidies are given 
to ecologically damaging, pesticide intensive monocultures like soy and 
corn. The previous farm bills have twisted what little farmland we have 
left into what is now basically a wasteland, requiring so much 
artificial additives to grow anything that the soil will likely not 
recover for generations. We need to start healing our farmlands now. By 
not subsidizing corn and soy, we can go back to a food system that is 
based on diversity, health, sustainability, and nature. Please remove 
corn and soy subsidies from the bill.
    Additionally, as the committee considers the 2012 Food and Farm 
Bill, I urge you to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.

            Thank you,

Devin Wilson.
                                 ______
                                 
                        Comment of Doris Wilson
    Date Submitted: Friday, May 18, 2012, 5:58 p.m.
    City, State: Lyman, SC
    Occupation: Substitute Teacher
    Comment: Like most Americans, I am deeply concerned about the 
direction agriculture is going in this country. There is too much 
``corn sugar'' and not enough healthy fresh produce. I want to be able 
to buy local, to know whether a food has GMOs, and to have farm animals 
reasonably well treated, with water supplies etc. protected from animal 
run off. Support family farms, not just huge agribusiness.
                                 ______
                                 
                       Comment of Dorothy Wilson
    Date Submitted: Friday, May 18, 2012, 5:08 p.m.
    City, State: Bloomington, IN
    Occupation: Retired Teacher
    Comment: Small farmers must be given every possible advantage to be 
successful because they can't compete with agribusiness. The future of 
a healthy kind of agriculture depends on attracting young interested 
men and women to get involved right away. We face tremendous challenges 
in the future as world population increases and our soil is depleted 
and poisoned. Please act responsibly for future generations.
                                 ______
                                 
                         Comment of Jan Wilson
    Date Submitted: Friday, May 18, 2012, 3:47 p.m.
    City, State: Shoreline, WA
    Occupation: Retired Registered Nurse
    Comment: Please strive to reduce the use of pesticides and 
chemicals. We need to work for an organic, healthy environment for the 
safety of our children, grandchildren and ourselves.
                                 ______
                                 
                         Comment of Jane Wilson
    Date Submitted: Friday, May 18, 2012, 4:24 p.m.
    City, State: Oregon City, OR
    Occupation: Homemaker
    Comment: I hope that instead of supporting corporate farms that you 
will seek to encourage small sustainable family farms in their effort 
to go organic.
                                 ______
                                 
                         Comment of Joan Wilson
    Date Submitted: Friday, May 18, 2012, 11:57 a.m.
    City, State: St. Genevieve, MO
    Occupation: Retired Teacher
    Comment: Small farmers need subsidies; big business farms can do 
quite well without the subsidies. Americans need more fresh fruits and 
vegetables from local farmers' markets; we need fewer processed foods 
that factory farms provide.
                                 ______
                                 
                         Comment of John Wilson
    Date Submitted: Sunday, May 20, 2012, 7:39 a.m.
    City, State: Virginia Beach, VA
    Producer/Non-producer: Producer
    Type: Fruits
    Size: Less than 50 acres
    Comment: As a grower and eater, I know the importance of fresh 
organic food in our diet. We now have an obesity epidemic. Please 
change the farm to support local small organic farmers. Giving money to 
large polluters and growers of low nutrition, chemical laden food is 
dangerous to us all.
                                 ______
                                 
                       Comment of Lindsay Wilson
    Date Submitted: Friday, May 18, 2012, 11:56 a.m.
    City, State: Sautee Nacoochee, GA
    Producer/Non-producer: Producer
    Type: Fruits, Specialty Crops, Vegetables
    Size: Less than 50 acres
    Comment: We need a farm bill that supports and protects small 
farms. Let's promptly move away from big ag and petro-chemicals and 
move forward into farming with nature. Please watch this 45 min. film 
to watch a woman in the UK narrate Exactly how I feel about the 
situation regarding food production and farming--http://
video.google.com/videoplay?docid=2750012006939737230.
                                 ______
                                 
                         Comment of Marc Wilson
    Date Submitted: Friday, May 18, 2012, 2:09 p.m.
    City, State: Clinton, WA
    Producer/Non-producer: Producer
    Type: Forestry, Fruits, Greenhouse/nursery, Specialty Crops, 
Vegetables
    Size: Less than 50 acres
    Comment: The current farm bill continues to support farms that are 
reducing our ability to produce food in the future. We need to 
eliminate all support for the unsustainable farms and expand support 
activities for farms that build the fertility of the soil that is the 
basis of all food.
                                 ______
                                 
                        Comment of Martha Wilson
    Date Submitted: Sunday, May 06, 2012, 7:42 p.m.
    City, State: Bryan, TX
    Occupation: Writer
    Comment: Please support continued funding for all Federal nutrition 
programs, including TEFAP, SNAP (food stamps), WIC, CSFP and others.
    The federally funded nutrition programs listed above provide a 
desperately needed safety net for hungry Americans throughout our 
country.
                                 ______
                                 
                        Comment of Robert Wilson
    Date Submitted: Friday, May 18, 2012, 3:55 p.m.
    City, State: Jacksonville, FL
    Occupation: Retired
    Comment: Please do everything you can to protect our increasingly 
poisoned food supply. The health of our citizens--and particularly our 
children--is relying on you and other representatives and senators to 
stand up to the agriculture lobby by denying their financial support 
(bribery) and passing laws preventing these poisons from reaching our 
food!
                                 ______
                                 
                        Comment of Stacie Wilson
    Date Submitted: Saturday, May 19, 2012, 11:23 a.m.
    City, State: Jacksonville, FL
    Occupation: Stay-at-Home Mom and Military Wife
    Comment: I think it is important to educate people on what is in 
their food. We are spending so much time raising awareness obesity and 
much is left unsaid about the foods that are ``considered'' healthy--
but How healthy? It does no good for us to eat ``healthy'' if what we 
are eating is just as bad as eating anything at all and not caring 
about being overweight. I would like to get rid of GMO's all together, 
but if that takes time, at Least have our genetically altered foods 
made aware to us so those who cannot afford to eat organic, as it is 
more costly, can choose which foods are within their budget that are 
altered. I believe the more we know, the more empowered we are to take 
action!
                                 ______
                                 
                         Comment of Ward Wilson
    Date Submitted: Saturday, May 19, 2012, 12:29 p.m.
    City, State: Louisville, KY
    Occupation: Engineer
    Comment: Please insist on keeping conservation requirements in the 
farm bill. We can, we must, preserve the land and water as we produce 
our crops. It is a false economy to damage the foundation of our crop 
production for short-term gain. It is also critical to improving our 
environment--from biodiversity to Gulf of Mexico seafood, there are 
real costs to uncontrolled agriculture.
                                 ______
                                 
                     Comment of Regina Wilson-Seppa
    Date Submitted: Friday, April 27, 2012, 11:20 a.m.
    City, State: Penngrove, CA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: It is very important to me that feeding families who are 
having great difficulty financially, is included in the farm bill. The 
economy is improving though slowly and many poor, elderly, children and 
families are still having a hard time securing regular meals.
                                 ______
                                 
                         Comment of Ann Winegar
    Date Submitted: Wednesday, May 09, 2012, 10:55 a.m.
    City, State: Excelsior, MN
    Occupation: Retired
    Comment: It is important to me that we take care of the needs of 
our own citizens before sending funds to foreign countries. It is 
important that our poor children, families and elders have enough food 
to live and be healthy. Thank you.
                                 ______
                                 
                        Comment of Sally Wingate
    Date Submitted: Thursday, May 17, 2012, 10:16 p.m.
    City, State: Nashville, TN
    Occupation: Retired
    Comment: Please fund the Organic Agriculture Research and Extension 
Initiative at $30 million/year in mandatory funding. Investment in 
agricultural research is vital to continued productivity and innovation 
in growing and diverse sectors of American agriculture, such as organic 
agriculture.
                                 ______
                                 
                       Comment of Betty Winholtz
    Date Submitted: Saturday, May 19, 2012, 2:55 a.m.
    City, State: Morro Bay, CA
    Occupation: Tutor
    Comment: Food is basic. I came to CA from Iowa. From one farm state 
to another, I know the importance of small farms. Please let the farmer 
not mega ag-business corporations grow our food.
                                 ______
                                 
                         Comment of Geoff Winn
    Date Submitted: Friday, May 18, 2012, 5:58 p.m.
    City, State: Redmond, OR
    Occupation: Retired
    Comment: Please keep voting in favor of Monsanto and other ag 
giants as we need corporate control of our food. We the people can't be 
trusted. I also love it when GMO crops pollinate nearby fields and the 
big corporations sue the blameless farmer, and they win. You must be so 
proud of yourselves.
                                 ______
                                 
                         Comment of Trisha Winn
    Date Submitted: Friday, May 18, 2012, 10:38 a.m.
    City, State: Beaverton, MI
    Producer/Non-producer: Producer
    Type: Livestock, Poultry/poultry products, Vegetables
    Size: Less than 50 acres
    Comment: Please, stop subsidizing corn and soy! Help small family 
and organic farms, not the giant corporate farms. I work at this full 
time, as a single mom raising four children, one with a disability. I 
have to be home, so I choke this life to make sure my children have 
clean food. My Right to feed my kids clean food is being destroyed due 
to GMOs cross-pollinating my organic heirloom crops. I raise my 
livestock on grass and hay, and with GMO alfalfa, all hay in the U.S. 
will be contaminated within 5 years according to scientists. This is 
unacceptable!
    Support family farmers! That means doing away with corn and soy 
subsidies! The U.S. should not have to import its vegetables and fruit, 
but now we do, because we use corn for everything, most of it terribly 
unhealthy and not necessary! Feed lots are an abomination--animals 
should graze or browse. HFCS is everything is a travesty--new research 
is linking HFCS to inability to excrete heavy metals (read: Autism and 
Alzheimer's)
    Locally grown, nutrient rich food is what Americans and this 
economy needs. Please support Farmers, not corporations!
                                 ______
                                 
                        Comment of Sandra Winter
    Date Submitted: Friday, April 27, 2012, 10:13 a.m.
    City, State: Marblehead, MA
    Occupation: Retired Educator
    Comment: I urge my elected officials to protect the programs in the 
farm bill that fund food for children and low income families--like 
SNAP. We as a nation cannot balance a budget by taking food from those 
less fortunate. Providing for our needy is our first responsibility--
there are other options. Please use them. And while you are at it, how 
about supporting all the small organic farms that serve to protect us 
from the harmful pesticides and fertilizers that big ago uses to 
produce food that is actually harmful to our health. The U.S. has much 
to do to restore our national food supply to health.
    Thank you very much for your service to this country. Do you best!

Sandra Winter, Marblehead, MA.
                                 ______
                                 
                       Comment of Francis Winzig
    Date Submitted: Friday, May 18, 2012, 1:17 p.m.
    City, State: Orlando, FL
    Occupation: Retired
    Comment: All subsidies for corporation farms should be stopped. 
Support for food stamps, and local farm co-ops should be increased! 
Obesity and Diabetes should not be a ``win-win'' for Corn growers, 
McDonalds and the Pharma companies.
                                 ______
                                 
                         Comment of Randy Wirth
    Date Submitted: Friday, May 18, 2012, 10:33 a.m.
    City, State: Millville, UT
    Occupation: Business Owner
    Comment: Hi,

    I have been involved in the organic industry since 1974 as both a 
businessman and a consumer. It is crucial to me, my family, and my 
business that certified organic products continue to be a viable 
alternative to industrial agribusiness.
                                 ______
                                 
                        Comment of Norman Wirzba
    Date Submitted: Friday, May 18, 2012, 12:27 p.m.
    City, State: Hillsborough, NC
    Occupation: Professor
    Comment: It is vitally important to me and to my family that we 
have a farm bill that promotes the health of eaters and the health of 
the land and its creatures. Today's conventional agriculture is ruinous 
of soil and water and highly abusive of animals and farm workers. This 
needs to change. The farm bill can help by supporting healthy food, 
grown in a sustainable way, with just agricultural working policies.
                                 ______
                                 
                          Comment of Ken Wise
    Date Submitted: Thursday, May 17, 2012, 2:51 p.m.
    City, State: New Paltz, NY
    Occupation: Agricultural Extension Specialist
    Comment: Keep in mind that sustainable agriculture, soil and water 
conservation, and the reduction of pesticide and fossil fuels as 
fertilizers are very important. Policy should increase the willingness 
and incentive to make changes to farming operations to meet the needs 
of our current and future food needs. While this sounds easy . . . I 
can tell you it is not. Social change takes a lot of work . . . meaning 
changing farming practices to make it more sustainable specific to each 
farm and farm producer. Providing a means for more education that gets 
directly to farmers is the number one priority. We have the technology 
to make sustainability happen--farm policy need to embrace this and 
make it happen. Money needs to be provided to states in a non-
competitive manner (meaning stop the grants give the money that is 
needed to do the work) so we all can help teach producers how to be 
more sustainable for future generation of farms.
            Sincerely,

Ken Wise.
                                 ______
                                 
                       Comment of Jowanda Wiseman
    Date Submitted: Friday, May 18, 2012, 2:26 p.m.
    City, State: Jeffersonville, OH
    Occupation: Librarian/Hobby Farmer
    Comment: I think more monies and consideration should be given to 
small, organic/natural farmers and fewer bills/monies in favor of the 
ag giants. Make sure the bill provides access to small farmers, 
schools, FFA, 4-H and doesn't put undue hardship on those who struggle 
the hardest to provide good, wholesome food for their tables and those 
of their neighbors.
    While you're at it, make the ag giants accountable for the harm 
they are doing to the soil, the air and the people.
                                 ______
                                 
                     Comment of Jeanette Wisniewski
    Date Submitted: Saturday, May 19, 2012, 2:02 p.m.
    City, State: Schaumburg, IL
    Occupation: Retired
    Comment: I volunteer at the Food Pantry run by my church and see 
the increase in numbers of people needing our services. I hope you'll 
consider voting for the farm bill coming up shortly. Thank you for your 
time.
                                 ______
                                 
                      Comment of Walter Wiszowaty
    Date Submitted: Saturday, May 19, 2012, 8:33 p.m.
    City, State: San Diego, CA
    Occupation: Trainer
    Comment: Agribusiness is polluting our food, water and land for the 
sake of more profit and thereby contaminating our food and water supply 
unchecked. This needs to be regulated just like any other large 
business that causes reckless endangerment to the citizens of this 
country. Former members of agribusiness and the pesticide industry 
cannot be allowed to be members of our regulatory structure because of 
their vested interests and biases.
                                 ______
                                 
                         Comment of Lon Withers
    Date Submitted: Friday, May 18, 2012, 2:24 p.m.
    City, State: Chicago, IL
    Occupation: Entertainment Industry
    Comment: Three words: Organic, Organic, Organic. Stop the poisons, 
stop the GMOs. There's only one direction to a healthy food supply, and 
the direction leads away from pouring billions of gallons of poison 
into our lands and waters, and laboratory created plants with toxic 
side effects. Mother Nature truly does know better than Monsanto. Stand 
up for what's right!
                                 ______
                                 
                       Comment of Helen Witowski
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Bridgeport, CT
    Occupation: Cashier
    Comment: Big business needs to keep their greed mentality out of 
the American food chain! All they care about are profits, not people! 
Have you all learned nothing from all the oil spills and mine 
accidents? Please don't continue being blind to what big companies are 
doing to our country!
                                 ______
                                 
                         Comment of John Witte
    Date Submitted: Tuesday, May 15, 2012, 6:44 p.m.
    City, State: Portland, OR
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: Much better to ``subsidize'' i.e., increase funding for 
such programs as SNAP than to throw $$$$ at commodity production (think 
soy beans, corn, and wheat) The commodities do very little nutrition-
wise other than lead to obesity!
                                 ______
                                 
                       Comment of Molly Woehrlin
    Date Submitted: Friday, May 18, 2012, 7:09 p.m.
    City, State: Northfield, MN
    Occupation: Retired
    Comment: I am interested in maintaining a safe food supply and very 
good inspections and monitoring--as well as support for small and 
sustainable farmers who are providing an alternative to factory farming 
which are hard on the environment. We need to make a big shift to 
supporting farmers who are heavily into conservation rather than 
encouraging more of the commodities. Thank you for looking to the 
future needs of our population.
                                 ______
                                 
                         Comment of Nikki Woelk
    Date Submitted: Friday, May 18, 2012, 1:24 p.m.
    City, State: Oakland, CA
    Occupation: Nonprofit Manager
    Comment: Please subsidize nutritional foods for all Americans 
(fruits, vegetables) and end subsidies which falsely lower the price 
and reinforce the purchase of unhealthy foods (soy, corn, meat). Do not 
cut funding for vital programs such as nutrition, conservation and 
support for organic and sustainable agriculture. Our health depends on 
it.
                                 ______
                                 
                   Comment of Patricia Wojciechowski
    Date Submitted: Friday, May 18, 2012, 12:17 a.m.
    City, State: West Allis, WI
    Occupation: Teacher
    Comment: School food programs should contribute to the daily 
educational curriculum of students. Nutritional information should be 
displayed with the food choices and data could be compiled for each 
student to be shared with parents and staff. Take advantage of this 
educational opportunity.
                                 ______
                                 
                        Comment of Nancy Wolbach
    Date Submitted: Sunday, May 20, 2012, 8:30 a.m.
    City, State: Tiverton, RI
    Occupation: Unemployed
    Comment: Hello, Representative Cicilline,

    I am a volunteer worker at a small certified organic farm, Skinny 
Dip Farm, in Little Compton, RI and Westport, MA. The owners are a part 
of a strong and healthy, if small, sector of the farm population in 
America dedicated to farming without pesticides, herbicides, etc. in 
order to produce safe and nutritious vegetables, meats and poultry.
    They have taken on the monumental task of educating the public to 
the health benefits of eating locally and organically grown food.
    It is however not surprising that American agribusiness continues 
to forge on in its quest for power to the extreme that it refuses even 
to label genetically modified food, thereby denying the public its 
right to know what they are buying. It is equally unsurprising that our 
government would allow this.
    Please, Mr. Cicilline, do all you can to fight against the enormous 
force that would take from us the right to choose.
            Thank you,

Nancy Wolbach.
                                 ______
                                 
                        Comment of Jillian Wolf
    Date Submitted: Friday, May 18, 2012, 5:42 p.m.
    City, State: Leicester, NC
    Occupation: Subsidized Housing
    Comment: Please consider small, local farmers as the only way to a 
sustainable future for all of us. It's time to recognize the mass 
destruction that agribusiness has wrought upon us . . . to take 
responsibility for cleaning ourselves up. It's now . . . or never.
                                 ______
                                 
                          Comment of Todd Wolf
    Date Submitted: Thursday, May 17, 2012, 12:09 p.m.
    City, State: Parsippany, NJ
    Occupation: Veterinarian
    Comment: Surrendering all U.S. agriculture to corporate control is 
dangerous, unhealthy (to individuals & the environment), and will put 
accessibility to one of the most basic human needs, food, at risk of 
being used as a tool of control against American citizens. The current 
loss of control to the big ag. corporations must cease or the 
consequences will be severe on many levels.
                                 ______
                                 
                        Comment of Alissa Wolfe
    Date Submitted: Thursday, April 12, 2012, 10:02 a.m.
    City, State: Rio Rancho, NM
    Occupation: Food Banking
    Comment: Nearly 50 million Americans are living in food insecurity. 
While food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance. 
Feeding our neighbors is a public-private partnership. I try to do my 
part by helping at a local hunger relief program in my community.
                                 ______
                                 
                        Comment of Ashley Wolfe
    Date Submitted: Sunday, May 20, 2012, 9:37 a.m.
    City, State: Fort Worth, TX
    Occupation: Teacher
    Comment: When I buy produce at the store or farmer's market, I look 
for items grown in the USA. This is pretty difficult since most produce 
I find is grown in Mexico, Costa Rica, Chile, etc.
    I would like to see more produce from the USA in our large chain 
grocery stores. We have capable farmers who can provide all the produce 
our country needs in a sustainable and organic way, without genetic 
modifications.
    I would also like a farm bill that requires genetically modified 
foods to be labeled accordingly.
                                 ______
                                 
Submitted Statement by Dennis C. Wolff, Owner, Pen-Col Farms; Partner, 
                           Versant Strategies
    Introduction

    I am presenting written testimony today on suggested changes to 
dairy policy as part of the 2012 Farm Bill. I am both a dairy farmer, 
owner of Pen-Col Farms, Millville, Pennsylvania, a purebred Holstein 
dairy farm, and also as a partner in a public affairs firm, Versant 
Strategies, of Harrisburg, PA that represents DPAC, a group of dairy 
farmers focusing on dairy policy reform. I have condensed my testimony 
into four bullet points to remove the burden of reading a lengthy 
document. My recommendations were formulated from my experience as 
someone who both worked in state government as the former Secretary of 
Agriculture for Pennsylvania as well as spending my entire life as an 
active dairy producer. I have great hope that the 2012 Farm Bill will 
bring some much needed changes to Federal dairy policy. The United 
States has finally realized that the future growth of the dairy 
industry will come from expanding exports. Our policy needs to reflect 
this reality. Thank you for this opportunity.

  <bullet> Global Markets will drive the growth of the U.S. dairy 
        industry going forward. We need Federal Dairy Policy that 
        complements this by eliminating the DPPSP (Dairy Product Price 
        Support Program) and makes sure supply management is not part 
        of future policy. This will send a clear signal to our trading 
        partners that we will be a dependable supplier going forward.

  <bullet> Simplify our existing complex policy by going to a two-class 
        system with competitive price discovery based on component 
        values. The competition will improve producer revenue while 
        simplifying the complexity of current pricing.

  <bullet> Take electronic reporting to the next level by requiring it 
        daily and including more products to increase marketplace 
        accountability and dilute the effects of the thinly traded CME.

  <bullet> Give dairy producers the option to custom fit their risk 
        management by moving LGM-Dairy forward and removing it from 
        pilot status. As a pilot program, it has proven itself as a 
        great tool for our industry. Many feel that this program should 
        replace MILC.
                                 ______
                                 
                        Comment of Lee Wolkowitz
    Date Submitted: Friday, May 18, 2012, 12:58 p.m.
    City, State: Culver City, CA
    Occupation: Sustainable Urban Agriculture Advocate
    Comment: It is imperative that we move from the megafarm and cheap 
processed food era that we have created and move back to smaller family 
owned and operated farms. The reason people are as obese and unhealthy 
as they are is directly proportional to the availability of cheap 
processed food and the lack of access to fresh pesticide free produce. 
It would be more economical to move back to pre-green revolution 
farming methods, without all the petro-chemical fertilizers, pesticides 
and giant machinery which. We must also begin to ban GMO crops because 
we have no idea what they are doing to us.
                                 ______
                                 
Submitted Statement by Tommy Wollenman, Board Chair, California Citrus 
                                 Mutual
    Good morning, my name is Tommy Wollenman and I am here today 
representing California Citrus Mutual. I serve as Board Chairman for 
that organization and have had the pleasure of doing so for almost 2 
years. I am also a citrus producer farming 120 acres and my family 
farms an additional 1,600 acres. I also serve as General Manager of 
LoBue Citrus, one of the industry's oldest shipper and marketer of fine 
California Citrus. We're proud of our history and look forward to our 
future.
    As you know, Citrus Mutual is active in public policy as a 
voluntary trade association representing citrus producers from as far 
as Imperial County and North up to Sacramento. We represent well over 
2,000 producers and over 65% of the tree crop produced in our state. 
California is the nation's number one fresh citrus producer. In terms 
of tonnage, we rank second to Florida, but in terms of value our $2 
billion industry is second to none. We ship to all 50 states and export 
around the world. Some 3,900 farmers employ 12,000 people with another 
10,000 individuals dependent upon our industry for their jobs. The 
economic value of our entire effort exceeds $4B.
    The farm bill, as far as we are concerned, provides the economic 
environment in which we can compete and hopefully continue to provide a 
nutritious commodity to millions of people around the world in a 
sustainable fashion that also provides the economic conclusion desired.
    Last September Citrus Mutual and our industry colleague, Sunkist, 
provided a letter that outlined our priorities relative to farm bill 
deliberations. Our priorities are still intact, and we were pleased to 
see a draft document promulgated by Congressional committees last Fall 
in anticipation of budget reconciliation. While that compromise never 
materialized between Houses of Congress the language developed by this 
Committee we deemed positive. Our concern is that it may unravel to our 
detriment.
    The budget for and programs within the Animal Plant Health 
Inspection Service are vitally important to our industry. APHIS trains 
our border inspectors, they help overcome trade barriers with their 
technical team of negotiators and they establish procedures for 
finding, treating and communicating about pests and diseases. Their 
work is to assist producers overcome pest and disease issues that are 
created by those who innocently or maliciously ignore our laws 
regarding the importation of foreign material. The APHIS budget has 
been cut, and this has created hardships on multiple industries. The 
farm bill must recognize the return on the dollar this agency brings to 
agriculture and the economy.
    Concurrent with that is the Citrus Health Response Program or CHRP 
and the 10201 program. CHRP is a national effort to do what no other 
nation has been able to do; allow their citrus industry to survive 
against the spread of Huanglongbing. Florida has it and has lost 
200,000 acres. Brazil has it and they have pulled over 12 million 
trees. It has been discovered in Texas groves and now in a small city 
in LA County. We believe this can be defeated and a full partnership 
with industry money and the Federal Government must be sustained.
    The 10201 program is a pest detection program that partners with 
state and local government to prevent the development of endemic 
populations of pests and diseases. Whether it is medflies, emerald ash 
borer or diseases; we cannot let this program become diminished because 
it places our nation's environment at great peril.
    A second agency within USDA must be supported by the farm bill. The 
Foreign Agricultural Service is a valuable tool to address trade 
opportunities from a policy perspective. Our President, Joel Nelsen, is 
presently Chair of the Fruit & Vegetable Trade Advisory Committee, for 
example. FAS occupies offices in foreign countries and Washington that 
works with industry stakeholders to create viable solutions for 
reducing tariff barriers, closing ports such as Jakarta, Indonesia and 
opening lucrative markets such as Korea, in our case. Without FAS, 
export opportunities would be greatly hampered.
    A third Agency has been spotlighted for review and that is the Risk 
Management Agency. Our industry is the second largest user of crop 
insurance in California. Over 80% of producers use it and Committee 
Members from California are all too familiar with our freezes of 1990 
and 1998. We don't mind other commodities seeking to copy our success 
in developing viable programs that are demanded by growers. But we are 
very concerned that new efforts would increase the cost of RMA to the 
nation's budget thereby increase our costs as an offset. That simply 
cannot be condoned and we would ask the Committee to be mindful of what 
looks good and what the unintended consequences may be.
    Citrus Mutual and our industry have found Market Access Program 
(MAP) and the Technical Assistance for Specialty Crops (TASC)--to be 
quite valuable. Neither program is a free ride for a commodity. Both 
create vehicles that allow industry to develop solution paths that 
expand exports. MAP and TASC have been used by this industry to create 
a market in Korea, one of our largest export destinations. MAP and TASC 
have allowed us to penetrate Australia and keep it as a viable market. 
Qatar, Dubai, Vietnam and Thailand are examples of small developing 
areas of commerce for the citrus industry that would not be 
materializing if it weren't for MAP.
    We certainly understand the need for fiscal responsibility. But 
when the effort to reduce costs creates unintended consequences such as 
the ability to market one's product, then is Congress really achieving 
the goal. Our industry's ability to maintain its economic viability 
insures over $500m of income tax support, 20,000+ jobs, $4b in economic 
activity. The strength of the programs and agencies above directly 
correlates with the strength of our industry. That partnership cannot 
be sacrificed. The unintended consequences would be dramatic.
    Thank you for this opportunity and I look forward to answering any 
questions you may have.
                                 ______
                                 
                       Comment of Barbara Wollman
    Date Submitted: Friday, May 18, 2012, 9:20 p.m.
    City, State: Friday Harbor, WA
    Occupation: Retired Librarian
    Comment: More support in legislation and tax breaks for small (50 
acres and under) farms, especially those who do not use hormones, 
antibiotics and other damaging products or practices. Prefer those with 
free range animals. The agribusiness mega farms do not need your help.
                                 ______
                                 
                       Comment of Susan Wolverton
    Date Submitted: Friday, May 18, 2012, 11:43 a.m.
    City, State: Cedar Rapids, IA
    Occupation: College Professor
    Comment: As a parent, teacher, gardener and food consumer, and 
citizen of a farm state, Iowa, I am deeply concerned that our ability 
to produce healthy food for the immediate and near future is 
compromised if the environment used to grow food, managed by the 
farmers, is not managed responsibly. I urge you to keep support for 
conservation programs in place so that our food supply is not put in 
jeopardy. It is our collective responsibility to manage our valuable 
agricultural lands with sustainable practices. This is a short-term and 
long term responsibility that should take priority. Without healthy and 
productive land we cannot have healthy and productive societies.
                                 ______
                                 
                        Comment of Laetitia Won
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Tewksbury, MA
    Occupation: Stay-at-Home Mother and Gardener
    Comment: Please help small organic farms, stop subsidizing 
commodity crops, and don't cut the food stamps programs! By making 
healthy food more affordable, you will help Americans get healthier and 
thus reduce the cost of health care. Listen to common sense, not 
special interests.
                                 ______
                                 
                       Comment of Christine Wood
    Date Submitted: Friday, May 18, 2012, 11:21 a.m.
    City, State: South Lake Tahoe, CA
    Occupation: Bookkeeper and Mother
    Comment: House Committee on Agriculture members,

    My husband and I are deeply disappointed in the food market of the 
United States of today. It seems that the majority of the foods on the 
supermarket shelves are either laden with genetically modified corn 
products or heavily pesticide-sprayed soy products. You all have the 
power to help change this with the 2012 Food and Farm bill.
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:
    Provide an even field by fully funding programs that support 
beginning and socially disadvantaged farmers and ranchers, organic 
farming, regional farming, and rural development. We need more organic 
farmers and ranchers, more sustainable food production, and more 
economic opportunity in our food system.
    Support family farmers that really need help, and not the biggest 
farms that don't.
    I hope you will consider the health of the your constituents akin 
to my concern for my two children.
            Thank you for your time,

Christine Wood.
                                 ______
                                 
                          Comment of Emmy Wood
    Date Submitted: Friday, May 18, 2012, 7:01 p.m.
    City, State: Wheat Ridge, CO
    Occupation: Teacher
    Comment: I would like to see the government rewarding farmers who 
produce healthy foods and use their lands in a sustainable, healthy and 
environmentally responsible way.
    As an educator I see firsthand the effects of our subsidy system. 
The foods provided for the school lunch program are hideous and 
inedible--they definitely do not align with the choosemyplate.gov 
standards! Healthy foods need to be more affordable and the unhealthy 
foods made from corn, soy and white rice need to be more expensive so 
we are not paying for them later (healthcare, and behavior problems in 
children and adults--prisons)
    Thank you for considering these much needed changes!

Emmy Wood.
                                 ______
                                 
                        Comment of Kristine Wood
    Date Submitted: Monday, May 14, 2012, 2:58 p.m.
    City, State: Council Bluffs, IA
    Occupation: WIC Coordinator/Dietitian
    Comment: I urge Congress to protect against hunger and promote 
nutrition in the upcoming farm bill by supporting programs like SNAP, 
TEFAP, CSFP, and FFVP. The children and families we see at the WIC 
clinics are very vulnerable in this economy!
                                 ______
                                 
                       Comment of Stephanie Wood
    Date Submitted: Friday, May 18, 2012, 12:01 p.m.
    City, State: Montclair, NJ
    Occupation: Secretary
    Comment: I eat, and my niece and nephew eat. Please get rid of 
Monsanto and their toxic GMOs and give our kids Healthy Organic Food! 
Don't you have children in your family? By the way you ought to stop 
torturing animals. Haven't you heard about mad cow disease, Salmonella, 
etc.? These come from mistreating farm animals. Please do the right 
thing--you eat, too--do it for your own health! Thanks!
                                 ______
                                 
                        Comment of Sarah Woodard
    Date Submitted: Friday, May 18, 2012, 4:15 p.m.
    City, State: Pittsford, NY
    Occupation: Asst. Treasurer
    Comment: The bill for our country's farms need to be revamped. They 
need to represent the changing environmental concerns of our citizenry 
by taking into account organic farming practices and the promotion of 
family farming that isn't reliant on synthesized chemicals.
                                 ______
                                 
                        Comment of Nola Woodbury
    Date Submitted: Friday, May 18, 2012, 7:41 p.m.
    City, State: Eugene, OR
    Occupation: Retired Nurse
    Comment: I believe that Americans have been hoodwinked into eating 
an unhealthy diet. The China Study has given us concrete proof that 
nutrition (or that lack of it) is the cause of most of our illnesses. 
It definitely is the cause of the epidemic of obesity in our country. 
It is time to focus on the people's health and not the profits of 
agribusinesses! The push for ``cheap food'' is Not worth the price we 
are paying in our health! I now eat a ``whole food/plant'' based diet 
and feel healthier than I ever have, without any medications. It is 
time to support local farms and organic farmers! It is time to label 
any food that contains GMO ingredients. It is time to re-educate the 
American people regarding their food choices and stop ``hiding'' 
sugars, and oils in most processed foods. It is time for some forward-
looking action from our government!
                                 ______
                                 
                      Comment of Margaret Woodruff
    Date Submitted: Friday, May 18, 2012, 10:07 a.m.
    City, State: Charlotte, VT
    Occupation: Librarian
    Comment: Good, fair food should be available to all. The economic 
and environmental models make it clear that we can grow enough food for 
all by growing close to home in a responsible way. Let's provide the 
opportunity for our farmers to do this and for the rest of us to 
benefit from the results.
                                 ______
                                 
                  Comment of Kenneth A. ``Jack'' Woods
    Date Submitted: Monday, April 23, 2012, 3:16 p.m.
    City, State: Minneola, KS
    Occupation: Ag Banker
    Comment: My main concern is the fact that some are wanting to put a 
$40,000 cap on the amount of crop insurance that a producer can 
receive. That would be much like telling a home owner with a $500,000 
home he can only insure it for $40,000. Why waste the money for such a 
small amount of coverage.
                                 ______
                                 
                         Comment of Lora Woods
    Date Submitted: Friday, May 18, 2012, 4:48 p.m.
    City, State: Ojai, CA
    Occupation: Backyard Gardener
    Comment: It's a sick government which takes food stamps away from 
the poor and continues exorbitant payments to wealthy farmers. It's 
agribusiness who are purveyors of poison and clearly own congressmen 
who would even consider such a bill. But then a physically sick 
citizenry is big business, too! And here you have the chance to start 
turning that around. We need organic, diverse crops.
                                 ______
                                 
                         Comment of Tara Woods
    Date Submitted: Wednesday, May 09, 2012, 11:59 p.m.
    City, State: Springfield, MA
    Occupation: Full-Time Student
    Comment: Absolutely no cuts can possibly take place right now. You 
have cut so many people off of unemployment who still have not obtained 
new employment. Along with all the others that were already dependent 
on the SNAP program these people now with no income have to go and seek 
this assistance as well. I understand the State needs to make cuts but 
for those living in a community that is struggling financially, will 
just make the less fortunate lives go from bad to worst. The food 
pantry is losing funding and it is just really terrible. I currently 
volunteer at the food pantry and we are serving over 2,000 recipients 
monthly. What will these families do? Please we do not need this type 
of cut right now. Help Us!
                                 ______
                                 
                        Comment of Jill Woodward
    Date Submitted: Sunday, May 20, 2012, 11:24 a.m.
    City, State: New York, NY
    Occupation: Video Editor
    Comment: Our current system of subsidizing giant agribusiness is 
making America sick and obese, poisoning our water supply, and 
contributing to global warming. A neat way to solve all three problems 
would be to take those subsidies and give them to small organic farms. 
Taxes shouldn't go towards such harmful practices. It's time to start 
righting some wrongs.
                                 ______
                                 
                          Comment of Joel Wool
    Date Submitted: Friday, May 18, 2012, 11:58 a.m.
    City, State: Cambridge, MA
    Occupation: Environmental Organizer
    Comment: The Local Foods, Farms and Jobs Act (H.R. 3286) is an 
essential bill that will protect the state of agriculture in the United 
States, an industry which has great impact on economy, environment and 
health.
                                 ______
                                 
                       Comment of Barbara Woolley
    Date Submitted: Friday, May 18, 2012, 1:05 p.m.
    City, State: Wilmot, NH
    Occupation: Medical Social Worker/Author
    Comment: Please, please, please listen to the people! Money 
interests have no business controlling the food supply. We have the 
right to have access to normal, unadulterated, organic, healthy food 
that nourishes our bodies and sustains life.
    I am deeply distressed that the mega corporations have been allowed 
to dictate what will/what will not be our food supply. Other nations 
are saying No emphatically to agribusiness. They are demanding truth in 
labeling. They are demanding food that is meant for humans. They are 
aware of the dire impact on the environment and every living thing by 
the chemical concoctions that are agribusiness offerings.
    I implore you to stand up against this tide of death that is being 
unconscionably inflicted upon us.
    Please, please, please vote for truth in agriculture, food that 
sustains health and the maintenance of life.
    As the great wise one, Hillel, said:

          ``If not now, when?''
                                 ______
                                 
                        Comment of Cathy Wootan
    Date Submitted: Tuesday, May 08, 2012, 9:53 a.m.
    City, State: Cleveland, OH
    Occupation: Site Coordinator of a Food Pantry
    Comment: I am writing, both as a mother and as the coordinator of a 
Cleveland-area food pantry, to urge you to protect hunger programs, 
especially those that directly impact children. There is no way we can 
expect our citizens to be capable and competitive in the future if they 
don't get proper nourishment today. And in spite of what you may hear 
from politicians and analysts, the economy has not yet turned around, 
at least not for the population we serve at our food pantry, so there 
is still a great need for programs like SNAP and TEFAP. I thank you in 
advance for doing whatever you can to safeguard this critical 
assistance.
            Sincerely,

Cathy Wootan,
Site Coordinator,
Brookside Center.
                                 ______
                                 
                        Comments of Ruth Wootten
    Date Submitted: Friday, April 27, 2012, 12:08 p.m.
    City, State: Tempe, AZ
    Occupation: Retired Social Worker
    Comment: It is imperative that you maintain the SNAP and other 
nutrition programs as you develop programs and funding for the 
reauthorization. SNAP has done exactly what it should do in responding 
promptly to severe unemployment and crisis situations. Do not cut 
nutrition programs which help meet the needs of low income families: 
57% of households receiving SNAP have income at or below the Federal 
poverty level, and 84% of them have a child, a senior, or a disabled 
person in the household.
    Conservation measures and assistance to small growers should also 
be continued.
    Date Submitted: Thursday, May 03, 2012, 2:02 p.m.
    Comment: We would urge you to assure that the farm bill includes 
strong support for nutrition programs for poor and hungry people, at 
home and abroad.
    SNAP benefits need to be maintained, and incentives should be 
increased for the purchase of healthy foods.
    Farm policies need to help build markets for domestic farmers, 
linking them to local and regional development of rural areas.
    Date Submitted: Wednesday, May 09, 2012, 5:29 p.m.
    Comment: It is tremendously important that you include strong 
provisions for continuing and strengthening nutrition programs, such as 
SNAP and TEFAP. A circle of protection needs to be placed around 
programs which meet the needs of poor and vulnerable people at home and 
around the globe.
                                 ______
                                 
                        Comment of Jenny Worman
    Date Submitted: Saturday, May 19, 2012, 1:23 p.m.
    City, State: West Hollywood, CA
    Occupation: Actor
    Comment: Please lift onerous red tape for small, and organic 
farmers. Stop FDA Harassment Of Raw Milk Producers Now! Lift ban on 
hemp farming, so our farmers can grow this extremely profitable cash 
crop. Ban GMO and sanction Monsanto from harassing small, local 
producers and other farmers. Stop colluding with Monsanto, and giving 
subsidies to Big Ag. Turn the water back on for all our farmers in 
California's central valley. People are more important than a 2 inch 
fish not even indigenous to the area.
    Thanks.
                                 ______
                                 
                        Comment of Jim Worstell
    Date Submitted: Thursday, March 22, 2012, 8:04 a.m.
    City, State: Almyra, AR
    Producer/Non-producer: Producer
    Type: Greenhouse/nursery
    Size: 301-500 acres
    Comment: Value-added Producer Grant Program and Farmers Market 
Promotion Program are the two programs which should not be cut and in 
fact should be increased. We do need to cut government expenditures 
drastically, but study after study shows that investment in job 
creating programs such as VAPG and FMPP actually increase government 
revenues because they increase jobs and income.
                                 ______
                                 
                        Comment of Denise Wright
    Date Submitted: Saturday, May 19, 2012, 11:09 a.m.
    City, State: Sebastopol, CA
    Producer/Non-producer: Producer
    Type: Poultry/poultry products
    Size: Less than 50 acres
    Comment: I would like to see fair competition for all, large or 
small. No subsidies for farming, all GMO products labeled, no 
pesticides used. This would allow equitable local sustainable farming. 
Thank you for listening.
                                 ______
                                 
                         Comment of Jeff Wright
    Date Submitted: Saturday, May 12, 2012, 6:00 a.m.
    City, State: Bellville, OH
    Occupation: Outreach Center & Food Pantry
    Comment: As president and a volunteer at an Outreach Center and 
hunger program, I am writing to share my deep concern about hunger in 
Ohio. With unemployment (and underemployment) still high and many 
Americans still struggling to make ends meet, anti-hunger programs are 
helping many of our neighbors just put food on the table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance. My 
program, is the Bellville Neighborhood Outtreach Center in Bellville, 
OH (southern Richland County) which serves about 750 people each month, 
providing nearly 58,000 meals a year. This is an increase of approx. 
50% over the number of people we were serving a year ago!
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP), The 
Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP), all of which are authorized in the 
farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization.
                                 ______
                                 
                         Comment of Jim Wright
    Date Submitted: Friday, May 18, 2012, 11:08 a.m.
    City, State: Somerville, MA
    Occupation: Art Conservator
    Comment: I am planning to start a small production vegetable farm 
in the Northeast in the next 5 years. Please consider the small, 
organic family owned farms as well the big producers.
                                 ______
                                 
                         Comment of Miki Wright
    Date Submitted: Friday, May 18, 2012, 12:26 p.m.
    City, State: Lexington, KY
    Occupation: Graphic Design
    Comment: We can't feed the world with non-nutritive mass produced 
mono-crops. This country and the world needs the nutrition small farms 
can provide in the form of native vegetables and meats. We have to have 
more than corn and soy. Look what that diet has done to our own 
country. We are horribly obese and unhealthy. We can and must do better 
for ourselves and the people of the world we want to help. They don't 
need obesity, diabetes, and high blood pressure that comes from eating 
cheap mono-cropped grains. Imagine a field full of greens, broccoli, 
tomatoes, yams, beans, and squash instead of soy and more soy and corn 
and more corn. Yes it is cheap and it fills their bellies, but they 
need a more balanced diet. We all do. By subsidizing these massive 
grain crops, you are killing people with cheap calories and junk food, 
and killing the planet with pesticides and herbicides while depleting 
the soil for future generations. We are running out of phosphorus from 
making artificial fertilizers for these massive fields, when we could 
be using composted manure that would make the soil alive again. This is 
so very out of balance, and our Government subsidies are the cause. 
Please be the remedy and support small farms, diverse crops and organic 
practices.
                                 ______
                                 
                        Comment of Nadine Wright
    Date Submitted: Friday, May 11, 2012, 5:33 p.m.
    City, State: Madison, WI
    Comment: Farming is an act upon the Earth for our own health. 
Pesticides, factory farms, other harmful chemicals, bad practice 
techniques and talking responsibility away from the communities for 
healthy food production are all hurting farmers and consumers.
                                 ______
                                 
                        Comment of Nancy Wright
    Date Submitted: Friday, May 18, 2012, 12:29 p.m.
    City, State: Orange City, FL
    Occupation: Retired
    Comment: Having concerns for the quality of our food inasmuch as it 
has been in steady decline over the past 50 years, I am calling for 
your support for organic and sustainable agriculture and the full 
endorsement of all the provisions of the Local Foods, Farms and Jobs 
Act (H.R. 3286), as well as the implementation of all provisions of the 
Beginning Farmer and Rancher Opportunity Act (H.R. 3236). We do not 
need to cut the food stamp program by billions of dollars in order to 
leave farm subsidies intact--we need to fully fund conservation 
programs like the Conservation Stewardship Program to make sure that 
enrollment in any new insurance subsidies are tied directly to 
compliance with conservation programs. When you grow good-quality, 
fully nutritious food, you don't need to eat as much to get your 
nutrition to keep a healthy body. God made us stewards of the land and 
animals to keep a viable future going for our next generations, and 
right now we are failing miserably at His command due to the influence 
of money and profits at the expense of others. The Native Indians had a 
better sense of the importance of taking care of Mother Earth than we 
ever have--we need to take lessons from those that take care of, and 
weed out the profiteers who are ruining things for everyone else as 
they have no real concern for anyone but themselves. We need more 
organic research funding for sustainable agriculture as we can grow 
more quality organic food in a small space that will properly feed more 
people than large agribusiness operations do with their nutrition-less 
crops that cause disasters for all. Please take heed--we all want our 
grandkids to have something great for their future, and not the 
illnesses and obesity they have now!
                                 ______
                                 
                       Comment of Wynetta Wright
    Date Submitted: Wednesday, May 09, 2012, 8:14 p.m.
    City, State: Jacksonville, FL
    Occupation: Nonprofit Org. Community Gardens
    Comment: I live in a community that is a food desert I take elders 
in my organization to the closest store there are so many that don't 
have this support. Let's feed the elders and everyone.

Wynetta Wright.
                                 ______
                                 
                      Comment of Dwayne Wrightsman
    Date Submitted: Friday, May 18, 2012, 12:44 p.m.
    City, State: Lee, NH
    Occupation: Retired Teacher and Producer
    Comment: I favor a farm bill that maximizes nutritious food 
production without excessive use of chemicals (herbicides and 
pesticides) in the production process in order to keep the people of 
our nation healthy throughout their lifetimes.
                                 ______
                                 
                         Comment of Chris Wrinn
    Date Submitted: Thursday, May 17, 2012, 12:25 p.m.
    City, State: Milford, CT
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: I produce my own organic food because I have an auto-
immune condition. We need to stop dumping tons of Round Up from 
Monsanto on our land, we need to be able to grow organic food and get 
support if needed. We need to let our local farmers label GMO foods as 
a freedom to let the public know what's going into their bodies. We 
need to stop fracking so the water and land isn't destroyed. We need to 
stop growing GMO corn as it's killing the bees, Poland has already 
stopped this practice. We need to get back to the land and away from 
chemicals that are killing it. We need to support the local farmer. 
Thank you.
                                 ______
                                 
                      Comment of Robert Wroblewski
    Date Submitted: Saturday, April 28, 2012, 8:52 p.m.
    City, State: Dearborn, MI
    Occupation: Retired Teacher
    Comment: Dear Members of the House Committee on Agriculture:

    As you prepare to write and vote on the farm bill, I ask you 
emphatically to preserve current funding for the Food Stamp program. 
Although I recognize the need to balance the budget and reduce the 
deficit, I implore you not to do so by cutting this most vital program 
to combat the problem of hunger in the United States. A recent study 
indicates that the Food Stamp program is preventing millions of 
Americans from falling below the poverty level. With a record number of 
Americans currently in poverty, I strongly urge you to protect this 
vital food assistance for some of our most needy and vulnerable 
Americans. Thank you for considering my opinion.
                                 ______
                                 
                          Comment of Jane Wurm
    Date Submitted: Friday, May 18, 2012, 9:54 p.m.
    City, State: New Bedford, MA
    Occupation: Unemployed USPS Mail Carrier
    Comment: I live surrounded by small farms (dairy, produce, cattle 
and poultry.) Most of them use limited to no chemicals; maintaining and 
improving the land they occupy. Having a source of nutrient dense 
Wholesome food so close to home benefits me, my family and the 
community in countless ways. These farmers need all the help they can 
get to survive against the Huge agribusinesses that receive WAY more 
government help than they need. The Health of our citizens is dependent 
on real food, from real farms that use sustainable agricultural 
practices. Invest in our small farmers now, save Billions on health 
care costs later. The savings to the environment in carbon terms is 
incredible. (My food is from a few miles away, not shipped from the 
other side of the world)
    Our local farmers help the community all they can: helping urban 
farmers grow crops on reclaimed vacant lots, helping volunteers grow 
tons and tons of food for our low income families, etc. Local farmers 
truly pay it forward. So I ask you to please support our small local 
farmers through a fair and generous farm bill. The health and future of 
this country depends on it. Thank you so much for all your hard work!

  Jane Wurm; Age: 56 on No medications, only see my Dr. for yearly 
    check up. Probably due to eating healthy local food.
                                 ______
                                 
                        Comment of James Wurster
    Date Submitted: Sunday, May 20, 2012, 6:36 a.m.
    City, State: Springfield, PA
    Occupation: Sr. Software Engineer
    Comment: Farmers serve an extremely important role in our society--
they help feed us. They are sometimes valued much less than what they 
are worth, much like teachers. We need to help them in every way we can 
to help them survive and so help us all survive.
                                 ______
                                 
                     Comment of Katherine Wuthrich
    Date Submitted: Friday, May 18, 2012, 1:43 p.m.
    City, State: Chicago, IL
    Occupation: Mother and Grandmother
    Comment: We need to cut farm subsidies and keep funding for organic 
and new beginning farmers. This is the way we can combat obesity and 
sickness. Many years ago we did not distinguish or food by organic and 
non-organic. It was all the same and pretty healthy. Cut The 
Entitlements To Farm Subsidies! Why are you against giving seniors and 
the poor what they are entitled to, yet you have no problem subsidizing 
the big farmers? Stop It!
                                 ______
                                 
                        Comment of Jeffrey Wyatt
    Date Submitted: Saturday, May 19, 2012, 1:07 a.m.
    City, State: Fairfield, CA
    Occupation: Food Service
    Comment: Organic and non-toxic farming techniques provide the best 
defense against major disease and pest infestation without considering 
the potentially harmful effects caused by consumption of pesticides and 
genetically modified foods. If we forced disclosure of the potentially 
harmful methods some of the fruits and vegetables are being cultivated 
with, the market demand for non-toxic fruits and vegetables would take 
care of the rest, benefiting the economy and the health of those who 
have been or will be affected by consumption of foods that contain 
toxic substances.
                                 ______
                                 
                        Comment of Bryan Wyberg
    Date Submitted: Saturday, May 19, 2012, 4:24 p.m.
    City, State: Coon Rapids, MN
    Occupation: Engineering
    Comment: Provide sound and robust funding for voluntary 
conservation programs. An investment in farm bill conservation delivers 
positive outcomes that benefit everyone. Protecting soil and enhancing 
water quality are long-term investments in food security and health 
that ultimately act as cost-saving measures as well as an economic 
stimulus. Prioritize the Conservation Title by funding it at the 
current baseline average of $6 billion a year.
    Re-establish the stewardship compact that ensures basic soil and 
water conservation on American farmland receiving farm bill subsidies. 
The Federal crop insurance program has evolved to become the largest 
farm bill subsidy provided to agricultural producers. Subsidizing risk 
can create an incentive for taking serious risks with our natural 
resources. Re-attach the same basic stewardship obligations that apply 
to other farm bill subsidies (provisions known as ``Conservation 
Compliance'') to combat unintended destructive consequences of 
taxpayer-subsidized crop insurance.
                                 ______
                                 
                        Comment of Nancy Wyland
    Date Submitted: Friday, May 18, 2012, 10:10 a.m.
    City, State: Coralville, IA
    Occupation: Environmental Health Research Administration
    Comment: It is critical that we maintain incentives for farmers to 
use conservation practices on Iowa land. If we do not take steps to 
conserve our most valuable natural resource, our cropland, we are not 
protecting our economic and environmental health interests. It's as 
simple as that. Without incentives, some farmers or farming operations 
may be tempted to forgo best practices in the interest of increasing 
yields and profits. We cannot afford to exploit the land in ways that 
lead to environmental degradation: soil erosion, destruction of natural 
prairies and wetlands that are critical to the survival of native 
species and the eco-balance in this region. Please protect these 
elements of the farm bill which look out for the long term 
sustainability of our land and the life upon it.
                                 ______
                                 
                         Comment of Lois Wyman
    Date Submitted: Thursday, May 17, 2012, 10:18 a.m.
    City, State: Union, MO
    Occupation: Land Owner
    Comment: We own a farm in Mo. and used a conservation easement to 
protect the land from future development . . . this would not have been 
possible without the tax abatement in the farm bill . . . please keep 
the incentives.

Lois Wyman.
                                 ______
                                 
                Joint Comment of Phillip & Hannah Wymola
    Date Submitted: Saturday, March 24, 2012, 8:05 p.m.
    City, State: Bryan, TX
    Occupation: Stockroom Manager at a State University
    Comment: I encourage you to support food programs for people who do 
not earn enough to feed themselves. Our family has been eligible for 
reduced price school lunches and probably other programs, but we have 
not used them. I believe the eligibility requirements should be 
adjusted, but I want the programs there if we really need them in the 
future.
    May God bless us.
                                 ______
                                 
                       Comment of Steveanna Wynn
    Date Submitted: Wednesday, May 16, 2012, 8:48 a.m.
    City, State: Philadelphia, PA
    Occupation: Executive Director
    Comment:

    1. Feeding our neighbors is a public-private partnership, and that 
        you are doing your part and you want our government to do its 
        part.

    2. Cutting anti-hunger programs will increase hunger in America, as 
        well as the associated health care, educational, and economic 
        costs of food insecurity and poor nutrition.

    3. Remember the families who are struggling in our community, and 
        urge them to protect and strengthen important anti-hunger 
        programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
        reauthorization.
                                 ______
                                 
                         Comment of Peedee Wyre
    Date Submitted: Friday, May 18, 2012, 7:39 p.m.
    City, State: Oakland, CA
    Occupation: Retired
    Comment: As a Vietnam vet with ``Agent Orange cancer,'' I would 
Love to see all herbicides, pesticides. etc., done away with; and for 
AgriBiz to find ways to work With Nature, not against it.
    Remember: if it kills earthworms, it's not good for humans. Etc., 
Etc., Etc.
                                 ______
                                 
                    Comment of Mary Xakellis-Chapman
    Date Submitted: Friday, May 18, 2012 4:18 p.m.
    City, State: Greenbelt, MD
    Occupation: Retired
    Comment: Factory farming is unsustainable. So is the massive use of 
chemicals which poison the Earth and the water. It is a legal form of 
fraud to have large areas untilled land under the guise of working 
farms and being paid to keep the acreage out of circulation. That this 
is allowed implies that are legislators are not operating for the 
common good, but for wealthy constituents.
                                 ______
                                 
                         Comment of Zita Xavier
    Date Submitted: Friday, May 18, 2012, 1:46 p.m.
    City, State: Bayfield, CO
    Producer/Non-producer: Producer
    Type: Field Crops, Fruits, Vegetables
    Size: Less than 50 acres
    Comment: It's time for an ag bill that supports sustainable 
agriculture and small farmers and takes away subsidies for mass 
chemical soil destroying farming. Please support a progressive farm 
bill that supports small farms like ours and resilience through local 
sustainable farms.
                                 ______
                                 
                        Comment of Sangita Yadav
    Date Submitted: Friday, May 18, 2012, 1:00 p.m.
    City, State: Germantown, TN
    Occupation: Mother and Consultant
    Comment: The Ag Committee needs to not only consider the economic 
interests of big-Ag but also the effects of this industrialized food 
systems that is costing us more in terms of our health, our 
environment--polluted air, increased use of water as well as degraded 
land when the long-term outlook if we are to continue on the same path 
looks very dire for all these natural resources. I hope the farm policy 
is based on all our interests, each citizen, and is holistic in its 
approach as we are in need of sustainable solutions not a stock market 
short-term approach which has shown to be problematic.
                                 ______
                                 
                        Comment of Artemas Yaffe
    Date Submitted: Saturday, May 19, 2012, 2:09 a.m.
    City, State: Redwood City, CA
    Occupation: Health Educator
    Comment: An Agriculture Bill must be passed which protects both the 
agriculture workers and the public which eats the food or end product. 
Avoiding dangerous pesticides & practices are foundational. Also, not 
allowing Monsanto or others control of the food round the world. Be 
wise, think and decide with wisdom and foresight.
            Thank you,

Artemas Yaffe.
                                 ______
                                 
                       Comment of Tom Yahnke, Sr.
    Date Submitted: Sunday, May 20, 2012, 2:38 p.m.
    City, State: St. Louis, MO
    Occupation: Retired Businessman and Educator
    Comment: I would like to see fair labor. I would like to see 
genetic modified food and components identified. I would like to see 
organic farmers have a better chance. I would like to see all subsidies 
carefully reevaluated.
                                 ______
                                 
                       Comment of Lydia Yamaguchi
    Date Submitted: Wednesday, May 02, 2012, 4:59 p.m.
    City, State: Long Beach, CA
    Occupation: Student
    Comment: As a citizen and student who is concerned about the future 
of United States Agriculture, I strongly advocate that the House 
Committee on Agriculture and the United States Congress keep smaller 
farm operations in consideration during deliberations over the farm 
bill. Small farming operations are economically, culturally and 
historically an integral part of our country's agricultural landscape 
and their needs should not be pushed to the side in the face of large 
agribusinesses and other interests. I would like to recommend that 
within the farm bill you have structures and supports to help assure 
that agricultural policy is not biased against small farming 
operations, in order to make sure that they are economically viable. In 
this way we can maintain a diverse agricultural landscape, support the 
American people, encourage local connections through agriculture, and 
make our agricultural communities places that people will be proud of 
in the future.
                                 ______
                                 
                        Comment of Kyo Yamashiro
    Date Submitted: Friday, May 18, 2012, 2:13 p.m.
    City, State: Santa Monica, CA
    Occupation: Researcher
    Comment: First and foremost, the priority of a new farm bill should 
be the safety and wholesomeness of our foods. We do not know enough 
about the effects of GMO products on our long-term health and the 
ecosystem. In the absence of eliminating or limiting the use of GMOs, 
we should at the very least be transparent about GMO products and label 
such products so that consumers are aware of what they are purchasing 
and putting into their children's and families' bodies. We should have 
the right to choose and we should have adequate information to make 
such a choice.
                                 ______
                                 
                       Comment of Rev. M. Yanish
    Date Submitted: Friday, May 18, 2012, 3:01 p.m.
    City, State: Katonah, NY
    Occupation: Retail Store Owner
    Comment: It is time for a return to sanity in our governments' 
support for healthy farming. Corporate agribusiness clearly does not 
have the public's health in mind with their practices. Our 
representatives need to stop giving in to those that are destroying our 
health, our environment and our humanity. It is time to represent the 
greater good, not corporate influence. Talk is cheap, action is 
priceless and our health is at increasingly at risk.
                                 ______
                                 
                       Comment of Finn Yarbrough
    Date Submitted: Friday, May 18, 2012, 12:39 p.m.
    City, State: Ferrisburgh, VT
    Producer/Non-producer: Producer
    Type: Livestock
    Size: Less than 50 acres
    Comment: Meaningful financial reform in the agricultural sector 
will mean gradually cutting out the subsidy props that support high-
input means of production. Yes, this will mean that the price of some 
kinds of food on the shelves will appear to rise. But the true burden 
on the taxpayer remains the same, or even improves over time as our 
food system becomes more sustainable and a higher number of American 
farmers have access to reasonable profit margins without the need for 
government intervention.
                                 ______
                                 
                       Comment of Erin Yarrobino
    Date Submitted: Saturday, May 19, 2012, 5:53 a.m.
    City, State: Ozone Park, NY
    Occupation: Unemployed
    Comment: Farmers should be given protection about the crops they 
harvest, and should be given fair wages too. Farm policy must protect 
farmers and the crops and all animals on the farm from pesticides and 
Toxins.
                                 ______
                                 
                        Comment of Sharon Yates
    Date Submitted: Saturday, May 12, 2012, 8:00 a.m.
    City, State: Brooklyn, NY
    Occupation: Retired
    Comment: We need to stop the enormous subsidies to Factory farms 
that essentially raise animal feed. These are monocultures that are 
environmentally disastrous and economically unsustainable. Instead, we 
should be supporting small local farms which grow a greater variety of 
crops, provide a place for the next generation of farmers to begin 
their careers, and which ensure that fresh local organic produce will 
be available nationwide without having to ship it from all over the 
world.
                                 ______
                                 
                       Comment of Virginia Yates
    Date Submitted: Wednesday, May 09, 2012, 5:54 p.m.
    City, State: Stafford, VA
    Occupation: Sales Associate
    Comment: Please don't support this bill that would undermine the 
stability of the poorest people in our country! So many people have to 
rely on SNAP programs etc. and if you cut down those programs it will 
affect the community negatively.
                                 ______
                                 
                        Comment of Alejandra Yee
    Date Submitted: Friday, May 18, 2012, 2:23 p.m.
    City, State: Raeford, NC
    Occupation: Homemaker
    Comment: Support organic farming! Don't give in to Big Ag 
(Monsanto) and their bullying. Stop subsidizing wheat and corn which 
makes processed foods cheaper. Our nation's health is heading into 
collapse with obesity and diabetes on the rise! Do the right thing for 
yourself and the nation!
                                 ______
                                 
                         Comment of Jeff Yoches
    Date Submitted: Friday, May 18, 2012, 12:19 p.m.
    City, State: New York, NY
    Occupation: Sustainable Designer
    Comment: Support small farms! Create jobs by support and nurturing 
the farm community we need food grown by people, not machines and 
industrial processes.
                                 ______
                                 
                         Comment of David Yoder
    Date Submitted: Sunday, May 20, 2012, 1:24 p.m.
    City, State: Chattanooga, TN
    Occupation: Insurance Sales
    Comment: It's time to end agricultural subsidies to industrial 
farms. These funds should be re-allocated to small farms. Specifically, 
funds should be used to help modernize equipment/technology, convert to 
organic, or diversify crops.
                                 ______
                                 
                           Comment of Jac Yon
    Date Submitted: Friday, May 18, 2012, 2:03 p.m.
    City, State: Spring Branch, TX
    Occupation: Retired
    Comment: If we want to lower the cost of health care in this 
country, we need to slow its demand. Improving nutrition is a huge step 
toward this goal. Increasing organic whole foods reduces the stress 
chemicals fertilizer and pesticides add to our bodies, thus promoting a 
stronger immune system to naturally battle disease. Our farm bill must 
help consumers choose better food that's organic. Doing so will lower 
the cost of health care . . . allowing consumers to increase prosperity 
. . . while improving their quality of life. If you want to reduce 
government debt, and improve the quality of citizens' lives, then vote 
to help make organic whole foods more available. Thank you.
                                 ______
                                 
                        Comment of Yuki Yoshida
    Date Submitted: Friday, May 18, 2012, 9:59 a.m.
    City, State: Urbana, IL
    Occupation: Student in Natural Resources
    Comment: The evidence is clear that the subsidies for large-scale, 
mono-culture farming is doing more harm than good. I also hope that you 
will consider designing a bill that gives farmers a stable security 
that does not require them to ``get big or get out.''
    Thank you.
                                 ______
                                 
                       Comment of Andrea Youness
    Date Submitted: Saturday, May 19, 2012, 5:43 a.m.
    City, State: Tampa, FL
    Occupation: Massage Therapist
    Comment: Please help create Real reform where the small organic 
farmer isn't bulldozed over by huge agricultural monopolies and forced 
to destroy the Earth's delicate balance by using chemicals to prepare 
the soil. We need to come together for real and sustainable farming. I 
would Love to see a realistic Organic Farm Bill put to work and 
supported by our government. Believe it or not, some of us aren't 
governed by the all mighty dollar and actually care about the foods we 
put into our mouths and how that food was grown.
                                 ______
                                 
                         Comment of Anne Young
    Date Submitted: Friday, May 18, 2012, 8:00 p.m.
    City, State: Revere, PA
    Occupation: Executive Assistant
    Comment: The big problem of child obesity should be proof that we 
are subsidizing the wrong foods. Please end funding for corn and 
soybeans and increase funding for fruits and vegetables. I support H.R. 
3236 and H.R. 3286.
            Thank you,

Ms. Anne Young.
                                 ______
                                 
                         Comment of Carol Young
    Date Submitted: Friday, May 18, 2012, 12:44 p.m.
    City, State: Port St. Lucie, FL
    Occupation: Nurse
    Comment: Our agricultural products must be kept safe for human 
consumption. We need to be aware of all genetically engineered food by 
labels. We need to protect family farms from being bullied and 
overruled by big money corporate farming corps. So many areas of life 
are affected by corruption and greed, we need to protect our food. We 
all need to eat to stay alive and we must stand up for safe food 
supplies.
                                 ______
                                 
                       Comment of Catherine Young
    Date Submitted: Friday, May 18, 2012, 2:25 p.m.
    City, State: Stroudsburg, PA
    Occupation: Career Counselor
    Comment: I believe that U.S. food and agricultural policy must 
focus on adopting best agricultural practices that put the health of 
its citizens, the land and the livelihood of farmers and farm workers 
over the interests of industrial agriculture lobbyists.
    I support:

    (1) The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

    (2) Fully funding conservation programs, such as the Conservation 
        Stewardship Program, and making sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    (3) The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

    (4) Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                       Comment of Jennifer Young
    Date Submitted: Wednesday, May 02, 2012, 9:48 p.m.
    City, State: Waterloo, IA
    Occupation: Social Worker
    Comment: Food insecurity should not be part of the literal Land of 
Plenty. Nourishment should be affordable and easy to find. Not a 
privilege for only a few. It's really a shame American farmer's farm to 
feed animals not the American people.
                                 ______
                                 
                         Comment of Julie Young
    Date Submitted: Saturday, May 19, 2012, 9:53 a.m.
    City, State: Golden, CO
    Occupation: Substance Abuse Counselor
    Comment: Please support the programs we need for TANF and SNAP. 
Many of the families I work with every day cannot survive without them. 
Large agribusinesses should not be included in any agriculture 
subsidies. They do not need government subsidies intended to help 
family farms. Our environment is being polluted with chemicals from 
pesticides and fertilizers used in farming. Organic farming helps the 
environment through the safe farming practices in the EQIP Organic 
Initiative. I support the full funding of the Conservation Stewardship 
Program and believe that any new farm insurance programs should comply 
with its guidelines. I also support the Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236) as an important tool in encouraging new 
farmers.
    We need to reduce the cost of transportation and energy required to 
move food long distances from where it is grown by encouraging food 
grown locally. I support the provisions contained in the Local Foods, 
Farms and Jobs Act (H.R. 3286).
                                 ______
                                 
                       Comment of Kristofer Young
    Date Submitted: Friday, May 18, 2012, 1:58 p.m.
    City, State: Ojai, CA
    Occupation: Doctor of Chiropractic
    Comment: The farm bill has historically subsidized crops that are 
now clearly known to cause obesity and chronic illness. We need a big 
change! We need to support the production of vegetables and fruits that 
are scientifically proven to improve health, and combat disease.
                                 ______
                                 
                         Comment of Marc Young
    Date Submitted: Thursday, May 17, 2012, 9:48 p.m.
    City, State: Sealy, TX
    Producer/Non-producer: Producer
    Type: Livestock
    Size: 50-150 acres
    Comment: Crop Insurance is an essential.
    Must keep Farm Service Agencies in each county that has 
agriculture. Consolidation must be more than a just a prescriptive 
``X'' number of miles apart. Consolidation reduces a counties say when 
the number on the Local Committee has to be prorated. Bigger area 
should have a bigger number of representatives. Areas that are being 
consolidated, if consolidation must happen should be areas of common 
types of ag production. Rice Farming areas should be consolidated with 
Rice Farming Areas not with Cattle and Corn, Cotton and Milo areas. 
(Waller Co. with Harris and Montgomery, not Waller and Austin Co.)
    Conservation and Wildlife subsidies while desirable are not as 
critical as crop subsidies. Low Cost Housing is not Agricultural 
related. No preference should be given to anyone on the basis of race, 
age, sex, creed or national origin.
    Programs should be moved to the state level and consolidated with 
state programs to reduce costs. Shift tax collection to the states.
                                 ______
                                 
                        Comment of Matthew Young
    Date Submitted: Friday, May 18, 2012, 8:08 p.m.
    City, State: Lake Forest, CA
    Occupation: Student and Teaching
    Comment: Please support a farm bill that pushes our country in the 
direction of encouraging and investing in healthier, higher quality 
food, with proper funding for organic, local, and sustainable 
agriculture. Do Not cut funding to vital programs such as nutrition, 
conservation and support for organic and sustainable agriculture. This 
would be a mistake and would put you on the wrong side of history. 
Agriculture and food politics is one of the next frontiers in political 
reform, and the direction in which the world, the nation, and local 
communities are moving is toward higher sustainability, organic 
farming, and increased implementation of cutting edge nutritional 
research into our dietary and agricultural economies. Good farming 
policy considers environmental, health, and local economy concerns. 
Thank you.
                                 ______
                                 
                          Comment of S. Young
    Date Submitted: Friday, May 18, 2012, 1:35 p.m.
    City, State: Gainesville, FL
    Occupation: Administrator for Aviation Leasing Company
    Comment: Please support local sustainable agriculture and organic 
agriculture in the farm bill.
    We desperately need to support our local farmers and ranchers to 
help avoid food riots in case the transportation grid goes down, which 
it could far too easily do should the Middle East erupt in war and the 
military seizes all sources of fuel.
    We also desperately need to support organic agriculture, as 
scientific studies have shown that all the chemicals and additives in 
our non-organic food supply have actually decreased its nutritional 
value to the point of barely offering any nutrition at all.
    Good nutrition is the heart of maintaining a healthy happy 
productive America, which is vital to the short- and long-term success 
of America.
    Big Corporate AgriBusiness does Not need any subsidies nor unfair 
marketing support. The small local farmers and ranchers, however, 
critically need support.
    Local farmers and ranchers are vital to providing food to 
communities in event of Middle East war, which is beginning to look 
more and more likely.
    Please do your best to help ensure local farmers and ranchers, and 
organic farmers, are well enabled to stay in business and to succeed, 
in order to protect America's health and ability to succeed and to grow 
despite overseas turmoil.
    Thank you.
                                 ______
                                 
                        Comment of Sharon Young
    Date Submitted: Friday, May 18, 2012, 9:28 p.m.
    City, State: Sykesville, MD
    Occupation: Retired Federal Employee
    Comment: Roscoe,

    Due To My Medical Conditions I Have Found That Organically-Grown, 
Non-GMO Foods Are Better For My Health Than ``Big Agri-Business'' 
Produced Foods. These wholesome foods have actually kept me from being 
one of those Burdensome patients for the nation's medical facilities.
    It Is Simply Silly To Reduce $4 million from organic research 
funding and cut funding to support Beginning Farmers in half. 
Especially at a time when Science (Yep, There's That Word Again) 
Clearly indicates that organically grown, Whole foods are one of the 
Keys to reducing Obesity in this nation.
    So, In The Public Interest, Roscoe, here's what I'd like to see you 
do:

    1. fully endorsement of all provisions of the Local Foods, Farms 
        and Jobs Act (H.R. 3286).

    2. Fully fund conservation programs, such as the Conservation 
        Stewardship Program, and make sure that enrollment in any new 
        insurance subsidies are tied directly to compliance with 
        conservation programs.

    3. Implement of all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

    4. Maintaining the EQIP Organic Initiative.

    Roscoe, please remember that as one of your constituents And a 
taxpayer I am also your employer.
    Thank You For Your Time.
                                 ______
                                 
                        Comment of Thomas Young
    Date Submitted: Sunday, May 13, 2012, 4:50 p.m.
    City, State: Seattle, WA
    Producer/Non-producer: Producer
    Type: Specialty Crops
    Size: Less than 50 acres
    Comment: As a small, young organic farmer we have found that it is 
nearly impossible to earn enough money farming, which is a very low-
income profession, to purchase the major input required for farming: 
land. We would love to see the new farm bill provide support for new 
farmers to access farmland at affordable prices that are not subject to 
the vagaries of speculation by the real estate market.
    We also are concerned about the general inability of most farmers 
to afford health insurance, despite the fact that farming is an 
inherently dangerous profession. Unaffordable costs associated with 
health care are one of the top reasons that many farmers end up having 
to sell their land and go out of business. Any provisions which make 
health care more affordable to farmers would be widely hailed as a 
tremendous benefit to low-income farmers.
    Finally, I would like to see programs that increase the access and 
affordability of locally grown produce for low-income consumers. 
Numerous studies have shown that low income families tend to eat less 
healthy diets high in processed corn and soy ingredients (which are 
heavily subsidized) rather than whole foods, As a consequence, these 
families suffer higher rates of obesity, heart disease, and type II 
diabetes, and they are often uninsured, further taxing our health care 
system. By increasing the availability of healthy, high nutrient, 
locally grown produce to low-income families, we will begin to address 
the myriad health problems associated with poor diets in America and 
support local agricultural producers, thereby creating stronger, 
healthier, and more resilient communities.
                                 ______
                                 
                    Comment of Carol Lou Young-Holt
    Date Submitted: Saturday, May 19, 2012, 8:34 p.m.
    City, State: La Honda, CA
    Occupation: Retired Educator
    Comment: I live in an agricultural region where we depended on 
locally produced food from small farms. We have no supermarkets locally 
and with farmers markets we are able to get fresh produce that is 
sustainably grown Our farmers need your support.
                                 ______
                                 
                         Comment of Saad Yousef
    Date Submitted: Friday, May 18, 2012, 1:15 p.m.
    City, State: Austin, TX
    Occupation: Entrepreneur
    Comment: I believe we can use organic farming practices and still 
be very profitable. Industrial lobbyists who only care about their 
bottom dollar will regret their actions only when a loved one is 
affected by unsafe farming practices. I call on you to ensure that a 
safe farming bill is passed through the House. I am sure you eat 
organic foods all the time and know how much more better tasting they 
are than regular foods. I will choose not to do business in a state or 
area where the health of individuals is not of utmost importance. After 
all it is a national security concern.
                                 ______
                                 
                          Comment of Eleu Yuen
    Date Submitted: Saturday, May 19, 2012, 2:51 a.m.
    City, State: San Diego, CA
    Comment: I hope that everyone gets to help us make the right 
choice. You know . . . food is one of the most important things to us 
Humans. Unless people are planning on killing us from the inside out 
with bad food, I don't see why any one person wouldn't vote for 
Organic. Thank you for your time.
                                 ______
                                 
                       Comment of Arthur Yuenger
    Date Submitted: Friday, May 18, 2012, 12:36 p.m.
    City, State: Fairfield, IA
    Occupation: Retired
    Comment: Wouldn't it be wise to put public money into healthy farms 
to produce healthy food? Why not take all the wasted defense money and 
put it into healthy agriculture?
                                 ______
                                 
                        Comment of Ruth Yurchuck
    Date Submitted: Thursday, May 10, 2012, 9:49 a.m.
    City, State: Tucker, GA
    Occupation: Part-Time Nursing Faculty Member
    Comment: Cuts to the Food Stamps program will be devastating to 
many who have jobs that do not pay enough, have lost jobs, and are 
between jobs.
    Food insecurity is a problem with a significant and growing number 
of Americans. Please do not reduce this most important and necessary 
form of assistance.
                                 ______
                                 
                          Comment of Julie Zak
    Date Submitted: Saturday, May 19, 2012, 1:12 a.m.
    City, State: Forestville, CA
    Occupation: Environmental and Coatings Consulting
    Comment: Large agribusiness concerns are hurting small farmers--
people have the right, always, to have good clean food, depend on the 
control of hazardous substances and be advised about what is in their 
food. Get real, get money out of Washington and work with farmers to 
ensure good food properly grown and identified.
                                 ______
                                 
                      Comment of Michelle Zambrano
    Date Submitted: Tuesday, March 20, 2012, 2:40 p.m.
    City, State: Lynbrook, NY
    Occupation: Outreach Coordinator
    Comment: Do not make cuts to SNAP benefits! SNAP relieves pressure 
on overwhelmed food banks, pantries, religious congregations and other 
emergency food providers across the country who could not begin to meet 
the need for food assistance if SNAP eligibility or benefits were 
reduced. SNAP is targeted to the neediest and most vulnerable people in 
our country, 84% of all benefits go to households with a child, senior, 
or disabled person. Please keep funding for this vital program intact!
                                 ______
                                 
                       Comment of Janet Zampieri
    Date Submitted: Friday, May 18, 2012, 1:26 p.m.
    City, State: Tucson, AZ
    Occupation: Retired
    Comment: We need a healthy farm bill that focuses on organic 
methods and away from chemical fertilizers and insecticides. We need to 
treat farm animals humanely. Bring the animals back into the pasture to 
let them fertilize the soil!
                                 ______
                                 
                         Comment of Keith Zang
    Date Submitted: Friday, May 18, 2012, 2:39 p.m.
    City, State: Elma, WA
    Occupation: Health Education
    Comment: Please keep funding for small independent farmers as well 
as organic farmers. We need them. they provide food and keep the money 
in our local communities creating economic stability.
                                 ______
                                 
                      Comment of Douglas Zapotocny
    Date Submitted: Monday, May 14, 2012, 8:24 a.m.
    City, State: Oak Park, IL
    Occupation: Retired
    Comment: It is important to protect food subsidy programs in the 
Federal budget and to not reduce the SNAP program. Budget cuts hurt are 
most vulnerable the most; we must protect this population as we reduce 
our overall expenditures.
                                 ______
                                 
                        Comment of Jesse Zastrow
    Date Submitted: Saturday, May 19, 2012, 6:58 a.m.
    City, State: Baltimore, MD
    Occupation: AmeriCorps Service Member
    Comment: In full support of an Organic Farm Bill! It is way too 
long overdue and as a people we Do have a right to know we have a very 
accessible means to safe, healthy, local, and sustainably harvested and 
farmed foods. I am a taxpayer and its absurd that it goes straight to 
keep huge agribusinesses afloat from ridiculous subsidies and lack of 
regulation. My one and only wish is for the next farm bill is that you 
give considerably more funding to small, local, organic farmers and lay 
a framework for allowing new and existing farmers alike an economically 
viable opportunity to farm using organic and regenerative methods. 
Thanks you.
                                 ______
                                 
                        Comment of Debra Zavala
    Date Submitted: Saturday, May 19, 2012, 2:25 a.m.
    City, State: Portland, OR
    Occupation: Theatre Checker
    Comment: We need to eat real food people. Folks are getting cancer 
and illnesses that are not 100% curable. We need to support farmers and 
have as much fresh vegetables from USA & fruits from USA on the tables 
of our families for children to eat and grow strong with healthy cells 
and healthy brains, and without autism. Please support the bill.
                                 ______
                                 
                        Comment of Jenna Zawacki
    Date Submitted: Friday, May 18, 2012, 12:17 p.m.
    City, State: Robbinsville, NJ
    Occupation: Nanny
    Comment: Monsanto has released its first direct-to-consumer 
product, a GM sweet corn containing Bt toxin, designed to protect the 
plant by rupturing the stomach of any insect that feeds on its. 
Monsanto claims the toxin will break down before the corn makes it to 
your dinner table, but rats fed on the GM corn showed organ failure and 
the toxin has been detected in the bodies of pregnant women. Please 
help our local farmers and keep Monsanto out of our fields! America is 
being destroyed for the sake of greed. These are your, brothers, 
sisters, child, grandchild that are being affected by this. Please 
please help us.
                                 ______
                                 
                       Comment of Christine Zecca
    Date Submitted: Friday, May 18, 2012, 10:58 a.m.
    City, State: Sausalito, CA
    Occupation: Artist/Counselor
    Comment: Please limit all your controls to agribusiness and huge 
feed lot operations. Let small farmers do what they do so well, which 
is grow clean healthy food, letting their cows eat grass in pastoral 
settings. Not only is this good for the environment, the animals and 
plants, but it is also better for us humans that need healthy food to 
grow and thrive. This is not happening now with the GMO tainted food 
and industrialized feed lots.
                                 ______
                                 
                          Comment of Judy Zehr
    Date Submitted: Friday, May 18, 2012, 9:32 a.m.
    City, State: Portland, OR
    Occupation: Counselor
    Comment: Please support family farms, small farms, organic farms, 
the farms that really need your support. Please support diversity in 
farming, and environmentally sound farming practices.
                                 ______
                                 
                      Comment of Shaddy Zeineddine
    Date Submitted: Friday, May 18, 2012, 2:51 p.m.
    City, State: Garden Grove, CA
    Occupation: Software Engineer
    Comment: The only path to a safe, secure, and equal food system is 
to eliminate all subsidies and government programs. Let people vote 
with their dollar by supporting the farms they prefer. Stop 
manipulating what farmers grow and what people eat by falling prey to 
powerful interest groups. An industry is like a football game, and the 
government role is the referee. Your role is to make sure everyone 
follows the rules to ensure our food is safe and do nothing else!
                                 ______
                                 
                        Comment of Michael Zelko
    Date Submitted: Thursday, May 17, 2012, 2:16 p.m.
    City, State: Makawao, HI
    Producer/Non-producer: Producer
    Type: Field Crops
    Size: Less than 50 acres
    Comment: America's greatness, at its foundation, is Agriculture . . 
. not Agribusiness. Please focus our taxpayer dollars on the building 
of locally produced safe food systems. If you, our representatives, 
focus our resources on sustainable agriculture then We Farmers will 
grow and produce food that will nurture our children for generations. 
The jobs based on sustainable agriculture will grow a stable long term 
economy.
    Please Focus, our future reality depends on it.
            Aloha

Mike Zelko.
                                 ______
                                 
                      Comment of Elizabeth Zenker
    Date Submitted: Friday, May 18, 2012, 5:36 p.m.
    City, State: Arcata, CA
    Occupation: Unemployed Social Worker
    Comment: I only purchase and consume organically grown food, due to 
my health issues (brain tumor survivor) and what I have seen take place 
in this country. And due to that brain surgery, I am disabled, and so 
on a low income. Yet it may have been my healthy lifestyle which has 
brought me far further on my recovery than the neurologists ever 
predicted it would!
    As I know how to cook basic foods, such as rice and beans, I find 
beautiful garden vegetables fully delicious--so continue to avoid 
purchasing non-organic foods. And I will take this opportunity to 
inform you of what I, and many others in my community, fully support:

  <bullet> The full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.
                                 ______
                                 
                        Comment of Janet Zerbel
    Date Submitted: Friday, May 18, 2012, 12:18 p.m.
    City, State: Grawn, MI
    Occupation: Retired Public School Teacher
    Comment: It's all about the health of our citizens. To be 
pragmatic, it's also about the financial cost of medical care for 
Americans. We deserve and need the Best nutrition, not the toxic 
``food'' produced by factory farms and Monsanto!
                                 ______
                                 
                        Comment of Natalie Zeri
    Date Submitted: Saturday, May 19, 2012, 4:56 p.m.
    City, State: Topanga, CA
    Comment: I do not eat pesticide sprayed food. I will not eat 
chemically engineered food.
    Abolish this type of farming practice or unsustainable, unethical, 
mindless food production machine that goes against the laws and cycles 
of nature.
    I don't want to be sick because of the food I may eat, the air I 
may breath or the water I drink. These unsustainable food production 
systems effect more than the growing pockets of chemical companies, 
they effect the balance of healthy life, healthy immune systems of all 
living species.
    Enough!
    Abolish this terror on our food and environment!
                                 ______
                                 
                        Comment of Jamie Zerilli
    Date Submitted: Friday, May 18, 2012, 6:51 p.m.
    City, State: Blauvelt, NY
    Occupation: Office Representative for Doctor
    Comment: I'd like organic farming in our Nation! Let's get back to 
basics and produce great quality foods. Our Nation is suffering with 
epidemics in massive proportions. Please!
                                 ______
                                 
                       Comment of David Zeutzius
    Date Submitted: Friday, May 18, 2012, 7:15 p.m.
    City, State: Erie, CO
    Occupation: Software Receive Call
    Comment: We need to cut back on the number of herbicides and 
pesticides used on crops. this will keep the farm workers safe and our 
food healthier. We also need to cut back on the amount of GM Corn/soy/
cotton/canola grown.
                                 ______
                                 
                       Comment of Carolyn Zezima
    Date Submitted: Friday, May 18, 2012, 9:50 a.m.
    City, State: New York, NY
    Occupation: Director of Nonprofit
    Comment: Please think about the importance of ``real'' food, 
vegetables and fruits, local economies and nutrition programs. Please 
start abandoning the emphasis on commodities and processed foods. This 
is our children's future--please don't make it worse. The farming of 
the last 40 years has got to move on to healthier, sustaining, soil-
building methods.
                                 ______
                                 
                       Comment of Adrienne Zhang
    Date Submitted: Friday, May 18, 2012, 1:59 p.m.
    City, State: Hamel, MN
    Occupation: Registered Nurse
    Comment: Please help stop the obesity epidemic, as well as many 
other health problems, by shifting support to non-GMO growers, and more 
fruit and vegetable production than grain production. I believe we are 
only beginning to see the adverse affects of high pest control and GMO 
use and will continue to feel them for decades to come . . . just like 
we have with DDT use. Help us stop experimenting on the public and take 
a more conservative approach that food is Not safe until proven so, as 
opposed to the FDA's current approach that it is not dangerous until 
proven so.
                                 ______
                                 
                     Comment of Jacqueline Ziegler
    Date Submitted: Friday, May 18, 2012, 5:27 p.m.
    City, State: Plymouth, WI
    Occupation: Minister
    Comment: It is time to support small family farmers who want to 
grow food and raise animals in sustainable and organic agriculture 
methods.
    The public has a right to want this; we are saying that it is 
important to us And to the land, water, air--to allow small family 
farms to provide people with local and healthy food. As we contribute 
with our taxes to the paying for the subsidies in the farm bill, we 
have a right to demand our requests be honored.
                                 ______
                                 
                        Comment of Barbara Ziek
    Date Submitted: Friday, May 18, 2012, 11:57 p.m.
    City, State: Colorado Springs, CO
    Producer/Non-producer: Producer
    Type: Other
    Size: Less than 50 acres
    Comment: Grow a spine, congress! Stand up and do what you know is 
right. Revamp the farm bill so that it works for real food producers--
organic farmers and the like--and for the food consumers of this 
nation. That would be all of us, even you, congress person. Push back 
against the big chemical/agriculture corporations' lobbyists even if 
they did give you money. Do something completely different for a 
change. Support the small farmer who grows diverse species of fruits, 
veggies and grains. In that way, you will support good health for 
American food consumers. Sorry, but a diet of Froot Loops, Twinkies, 
pizza, French fries and Coke does not build good health, and, via their 
GMO ingredients, these foods are usually subsidized. Subsidize the 
small farmer who produces real food, wholesome vegetables, fruits and 
grains, not corporations who contribute genetically modified 
ingredients to the food-like substances that parade as food in our 
country today.
    Now, I do understand that the FDA, the USDA, Monsanto, Cargill et 
al., are simply different arms of the same entity and that their 
interest is in making profits--especially wealth for themselves. And I 
do realize they push you hard for generous subsidies. However, it is 
time that the farm subsidies work in favor of consumers and in favor of 
the small farmers who produce real food--lots of vegetables, fruits and 
whole grains as well as meat and dairy that is humanely raised on diets 
natural to their species without the use of routine antibiotics and GMO 
grain.
    Where will the money come from? Immediately drop All subsidies for 
producers of genetically modified food unless genetically modified food 
is accurately labeled for the consumer. The corporations will whine and 
whimper and cry foul. But you will not be adding regulations. You will 
not be adding taxes. You will simply be asking those companies to stand 
on their own feet instead of riding on the tax payers' backs.
    Split the current subsidy pot two ways: farmers who raise organic 
food and the food consumers. If GMO producers suddenly overcome their 
aversion to labeling, give those chemical/agricultural corporations 
that get subsidies now up to \1/3\ of the pot, with the stipulation 
that the subsidies must first go to developing and implementing ways of 
preventing their crops from spreading uninvited to neighboring fields. 
Other corporate subsidy money should be spent doing rigorous testing on 
GMOs by independent researchers.
    Why subsidize the small farmers and organic growers? It will help 
lower the prices of nutritious whole food which will encourage people 
to buy and eat this good food. Raising these subsidies and lowering GMO 
ag-corp subsidies will make real whole food more competitively priced 
with processed food-like substances. People will buy more healthy food. 
A healthy diet = healthier citizens = potentially lower medical bills, 
especially bills related to obesity and obesity related diseases such 
as diabetes and heart disease. Hmmm. I think I heard somewhere that 
skyrocketing `health' care bills could bankrupt this country in the few 
decades . . . Ah, yes, congress person, what one puts in one's body is 
often related to how much one puts in the local hospital's coffers. By 
legislating for healthier whole foods, you will at the very same time 
and at no added expense, legislate for healthier human citizens. 
Healthier human citizens have fewer medical bills. This could help 
offset the terrible national medical expense. Healthy human citizens 
are more productive on the job. Gee, isn't productivity on the job an 
issue? Isn't the pentagon a bit worried about finding healthy recruits? 
Feed The Nation Healthy Food, Real Whole Food, For A Change! You have 
the power to do that by restructuring farm subsidies and passing other 
health promoting legislation, congress person!
    I suggested subsidizing food consumers. In the farm bill? Why in 
the world do that? Almost two generations have grown up with processed 
food ads as their nutritional `experts' and guides. Home economics 
courses were dropped from schools long ago to save the schools money. 
People, especially young people, need to be retrained about what to eat 
and how to prepare food. They have been trained by expert corporate 
marketers to consume disease promoting junk. They know nothing about 
real nutrition or healthy preparation of food. They don't know that 
eating a diet of highly processed crap brings them the misery of 
diabetes, heart attacks and obesity. Who is going to teach them? No 
one, unless Uncle Sam steps in. Big food corporations are not going to 
stop spewing their nutritional nonsense on TV. The advertising arms of 
food interests have shown without a doubt that they cannot be trusted 
to do that. I started teaching in 1970. I witnessed firsthand the 
change in my students' diets over the decades. I watched with great 
frustration the decreased learning abilities of increasing numbers of 
kids--kids who eat Twinkies for breakfast and come to school with their 
Pepsi in hand, then eat pizza and fries for lunch every day. Garbage 
in; garbage out.
    So how would subsidizes to help consumers work? Subsidize 
supermarkets in food deserts. Subsidize food stamps so that they will 
pay 2 for 1 when spent on whole grains, vegetables and fruits and 
organic meat and dairy. Hold classes about fresh food preparation and 
cooking in the supermarkets and subsidize that. Send those consumers 
home with food necessary to cook the meal they just learned about. 
Subsidize that. Use some of that money to advertise fresh veggies and 
whole grains to kids to help combat the endless promoting of health 
destroying junk food that they watch on TV. Use some of that GMO 
subsidy money to teach people, especially kids, to grow community 
gardens in the cities. Kids who grow food, kids who prepare food, are 
likely to eat it--even if it's broccoli. Kids who eat lots of carrots 
and spinach and yes, broccoli, are healthier and learn better than kids 
who eat lots of processed cake, soda and chips.
    This reallocating of subsidies will support small farmers and food 
businesses as well as food consumers and will send a strong message to 
big chemical/agricultural corporations that this nation is truly about 
supporting its farmers and its food consumers (that's us--we all eat). 
You will be saying that you are not going to be spending our hard 
earned tax dollars supporting the disgusting health-destroying charade 
that masquerades as our food supply system today.
    In addition to reallocating farm subsidies, support H.R. 3236 and 
H.R. 3286. Fully fund conservation programs such as the Conservation 
Stewardship Program. Maintain the EQIP Organic Initiative.
    Stand up to your corporate controllers, congress person! Stand up 
for the People of this country! It is actually patriotic to work for 
the good of the country! Stand up, congress person! Be a human American 
working for other human Americans, for a change.
    If you are that rare Congress Person who does work for the people 
of this country and their health and well being, thank you! Please pass 
this along to a congress person who needs a little reminder. If you are 
a congress person who needs a reminder to work on a farm bill that 
benefits the producers of real, whole foods and benefits food 
consumers, Get Your Ass In Gear And Pass A Farm Bill That Will Help 
Producers Of Organic Food And Help Americans Get Healthy.
    The farm bill may be the most important bill you pass. Yes, the 
farm bill affects those who produce the food we eat. It also directly 
affects the health of our citizens. You have it in your power to do 
something about that, congress person. Do you have the courage it will 
take to fly in the face of these corporate citizens who like the status 
quo and want more?
    The farm bill quite directly affects how well students learn. You 
have it in your power to do something about that. Do you really care 
about our kids? You either do or you don't.
    The farm bill affects the military, and thus, our national 
security; recruiters say up to \1/4\ of applicants are too obese and 
unhealthy to be soldiers. Are you a true patriot? One who will stand up 
against corporate controllers, one who will stand up for real food 
reform in this country? They say the army moves on its stomach . . .
    A major reason our young population is so unhealthy is the often 
subsidized GMO-containing food-like substances they do eat--and the 
real, whole foods they don't eat. You have in your power to do 
something about that. Are you man enough for the job?
    Companies' expenses shoot through the roof with the outrageous cost 
of employee health benefits and employee absenteeism; a healthy 
workforce eats good, whole food. Health benefits for healthy employees 
cost less; healthy employees are more productive. You have it in your 
power to do something about that, congress person. Don't rubberstamp 
the farm bill, don't just tweak it and Don't give in to your 
controllers' demands for more subsidies and more unsavory leeway in 
getting their unhealthy products to market.
    Trash the destructive parts of the old farm bill. Be willing to 
think outside the corporate box; don't be afraid to do something 
ingenious because it hasn't been done before. Pass a bill that supports 
good, whole food for America instead of supporting the disease-
promoting crap that is so regularly presented to us as food. Use our 
tax money to support the growing of healthy food for America. Work for 
the human citizens who voted for you, not the corporate citizens who 
may have bought you.
                                 ______
                                 
                        Comment of Linda Zigich
    Date Submitted: Friday, May 18, 2012, 3:38 p.m.
    City, State: Medford, OR
    Occupation: Retired
    Comment: Why not cut subsidies to farmers who do not farm on their 
land and support the organic and sustainable crops farmers that do? We 
need product, produce, and progress on this measure not profit for the 
few. Our food supply needs to be sustainable and abundant.
    Please take action that insures us of that need. Thank you.
                                 ______
                                 
                       Comment of Adam Zimmerman
    Date Submitted: Thursday, May 17, 2012, 3:22 p.m.
    City, State: Portland, OR
    Occupation: Investor
    Comment: Thank you for accepting comments on this important piece 
of legislation. The farm bill is our de facto policy for rural 
development in the U.S. It has long been a grab bag of subsidies and 
disconnected programs that prefers to funnel money into existing 
programs, often disregarding there efficacy, or ability to create real 
economic opportunities. Please consider increasing support to programs 
that catalyze rural business innovation, that support the development 
of a diverse small-business base in rural communities. That score 
proposals that offer living wage employment and small business 
generation higher than subsidies for factory farms that provide minimum 
wage jobs with little opportunity for advancement. Thank you.
                                 ______
                                 
                      Comment of Audrey Zimmerman
    Date Submitted: Friday, May 18, 2012, 9:42 a.m.
    City, State: Cary, ME
    Occupation: Educator
    Comment: I think one of the most important jobs you have before you 
in the 2012 Farm bill is to decentralize the farm industry by moving 
farm policy toward greater support of small family farms (100-1,000 
acres), and smaller farms in general. This is critical to food 
security, food safety, and farming/environmental sustainability.
    End subsidies for corn, which is fueling more ethanol than food 
production, and is responsible for the explosion in cheap corn syrup 
sweetener, which is debilitating the health of our people.
    I think the link should be broken between food production and 
commodities/futures markets, which don't benefit farmers as much as 
Wall Street financiers.

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.
                                 ______
                                 
                       Comment of Cindy Zimmerman
    Date Submitted: Friday, May 18, 2012, 8:18 p.m.
    City, State: Palatine, IL
    Occupation: Engineer
    Comment: Stop farm subsidies on large scale farms. Encourage small 
scale farms which practice sustainable farming. Don't get provisions 
that help organic farming. Don't encourage CAFO animal production.
                                 ______
                                 
                       Comment of Joan Zimmerman
    Date Submitted: Saturday, May 19, 2012, 1:11 p.m.
    City, State: Dearborn, MI
    Occupation: Early Childhood Educator
    Comment: It's tough for farmers to deal with uncertain weather, as 
well as big moneyed companies like Monsanto bullying farmers and 
producing ``Frankenfoods'' which will undoubtedly mean negative health 
effects to many consumers. Big industrialists need to know that we are 
all in this together! Our food safety is their food safety as well. I 
am old enough to remember the movie Soylent Green . . . Who knew at the 
time that that Charleton Heston film was a glimpse to the future of 
farming and farmers, and how we what people would have available to 
eat! How sad for all of us. Please! Stop the madness and save our farms 
and the farmers who work to feed America. Thank you!
                                 ______
                                 
                         Comment of Tracey Zink
    Date Submitted: Friday, May 18, 2012, 2:36 p.m.
    City, State: Richmond, VA
    Occupation: Public Relations Professional
    Comment: I cannot stress enough how important it is to support 
organic farmers and organic farming practices in a time where we are 
being bombarded with chemicals from every direction. I practice a very 
healthy lifestyle eating fresh fruits and vegetables and exercising 
daily. Several years ago in my mid-30s I became ill and started gaining 
weight, losing muscle tone and contracted skin cancer and some odd 
muscle inflammations. I'm too young and shouldn't be having these 
issues so I've done a lot of research to find out what happened. I was 
predominantly eating kashi and non-organic (aka genetically modified 
GMO) vegetables and fruits. I believe the symptoms I had were a direct 
result of all the toxins I was unknowingly ingesting and a lack of 
nutrients in the food to bolster my immune system. In fact GMOs are 
polluting our environment as pesticide resistance increases and the 
runoff is getting into our air, our meat and our water supply. It's not 
a sustainable method of farming and logical observers should be able to 
make a common sense judgment that while these are not intentionally 
ill-meant farming practices, they are having a negative effect on the 
health of the general population in the United States as a whole. Since 
switching to completely organic foods, I have not had a recurrence of 
cancer or any of the other health issues that I was dealing with 
before. Other than that my lifestyle has not changed much. I don't ask 
that you make a judgment on GMOs at this time (as we would need to cite 
many studies and the questionable influence of former Monsanto 
employees in all the bureaucratic positions), but I do ask that you 
keep competition in farming practices fair and competitive so all 
Virginians will still have the opportunity to make their own choice on 
what they choose to eat. I urge you to support funding aimed towards 
organic farming and practices that are natural and do not use 
pesticides and additives. By increasing funding here you will not only 
help support sustainable practices in agriculture and local businesses 
that will maintain our agricultural landscape in Va., but also you'll 
be supporting Virginians right to choose foods that they feel are the 
best for their family and the environment. Please vote to increase 
funding to organic farmers and organic farming practices in this 
session's farm bill. Thank you for your serious consideration in this 
matter and for serving as the voice for our community.
                                 ______
                                 
                         Comment of Jean Zirger
    Date Submitted: Friday, May 18, 2012, 2:34 p.m.
    City, State: Mena, AR
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: This new farm bill must level the playing field upon which 
producers of any size compete in the marketplace. The unfettered free 
market will then decide how the profits get shared.
                                 ______
                                 
                        Comment of Vincent Zito
    Date Submitted: Friday, May 18, 2012, 12:43 p.m.
    City, State: Concord, NH
    Occupation: Electronics Technician
    Comment: Our farm policy should promote organic farming, period. We 
need to remove forever the influence of agribusiness, GMO, and chemical 
industry special interests from our agricultural policymaking. This 
will improve not only the health of our people, but the health of our 
democracy.
                                 ______
                                 
                         Comment of Marc Zocher
    Date Submitted: Friday, May 18, 2012, 1:00 p.m.
    City, State: Bainbridge Island, WA
    Producer/Non-producer: Producer
    Type: Vegetables
    Size: Less than 50 acres
    Comment: As a small producer, I urge you to refocus the farm bill 
to match the grassroots movement away from factory farming, away from 
GMO crop support, and away from the corporate control of our food 
supply. In case you haven't noticed--if you don't fix it, we, the 
people, will. Please help us while you're still relevant in this 
discussion!
                                 ______
                                 
                      Comment of Chetanaa Zoeller
    Date Submitted: Friday, May 18, 2012, 3:52 p.m.
    City, State: Makawao, HI
    Occupation: Realtor
    Comment: Organic farming is the only way to really be sustainable 
and ensure that there will be a livable planet for many future 
generations . . . so please make sure you take that into account. GMO 
will create too many imbalances . . . it is not safe and needs to be 
abandoned now.
                                 ______
                                 
                        Comment of Honz Zondorgh
    Date Submitted: Friday, May 18, 2012, 5:35 p.m.
    City, State: Tucson, AZ
    Occupation: Retired Doctor
    Comment: Please protect small organic farmers who help improve food 
quality and sustainable agriculture for benefit of our children and 
grandchildren. Thank you.
                                 ______
                                 
                         Comment of Gretta Zorn
    Date Submitted: Friday, May 18, 2012, 5:09 p.m.
    City, State: North Brunswick, NJ
    Occupation: Retired Educator
    Comment: Please consider the impact of the bill on the health of 
the land and of the citizens who consume the products of the land. Big 
agribusiness has held sway far too long, to the detriment of our health 
and environment.
                                 ______
                                 
          Comment of Demetrio P. Zourarakis, Ph.D., GISP, CMS
    Date Submitted: Friday, May 18, 2012, 12:06 p.m.
    City, State: Versailles, KY
    Occupation: Geographic Information Systems Analyst
    Comment: Dear Representative,

    As a Fellow of the Soil and Water Conservation Society, and member 
of the SWCS Kentucky Bluegrass Chapter for the last 25 years, while 
holding a Ph.D. in Soil Science and Plant Physiology from the 
University of Kentucky, and living in a rural county such as Woodford, 
I can truly appreciate the value of the natural resources with which 
our county, state and country are blessed with. Please make sure you 
tie any subsidies to compliance with resource conservation programs. 
Our future and sustainability depends on it. I am not asking for higher 
taxes or more spending; just spending our dollars wisely to ensure 
future generations of Americans are able to produce their own food, 
fiber, feed, fuel, and pharmaceuticals from natural resource production 
systems.
            Sincerely,

Demetrio P. Zourarakis, Ph.D., GISP, CMS,
 [Redacted].
                                 ______
                                 
                         Comment of Anne Zuber
    Date Submitted: Friday, May 18, 2012, 3:12 p.m.
    City, State: Sunnyvale, CA
    Occupation: Natural Products Educator
    Comment: Do everything you can to lead us to an America that shines 
among the healthiest countries in the world. There is no excuse for the 
way we have fallen short of this. Let us shine!
                                 ______
                                 
                        Comment of Robert Zucchi
    Date Submitted: Saturday, March 17, 2012, 12:40 a.m.
    City, State: Corvallis, OR
    Occupation: Retired
    Comment: I'm aware that the majority of the funding in the farm 
bill goes to nutrition programs like Supplemental Nutritional 
Assistance and Emergency Food Assistance. These programs put food on 
the table for hungry kids, seniors and families. At a time of 
widespread economic hardship in our country, it is imperative that 
these programs continue to be adequately funded.
                                 ______
                                 
                        Comment of Pam Zuchowski
    Date Submitted: Friday, May 18, 2012, 6:57 p.m.
    City, State: Wellsboro, PA
    Occupation: Teacher
    Comment: Let's end subsidies to corn and start putting our money 
toward organic initiatives. With a little government backing we can 
break the Monsanto monopoly!
                                 ______
                                 
                        Comment of Isabel Zucker
    Date Submitted: Friday, May 18, 2012, 3:52 p.m.
    City, State: Davis, CA
    Occupation: Student
    Comment: The farm bill needs to Stop subsidizing the production of 
corn. Corn leads to many health problems like diabetes and unequal 
access to healthy foods. Corn subsidies also contribute to the need for 
factory meat production to eat the overproduction of corn. The farm 
bill needs to support healthy produce like broccoli, spinach, carrots, 
squash, yams, oats, etc. to promote equal access to healthy, fresh 
produce and increase the well being of The People.
                                 ______
                                 
                      Comment of Richard Zuckerman
    Date Submitted: Friday, May 18, 2012, 12:51 p.m.
    City, State: New Brunswick, NJ
    Occupation: Unemployed Paralegal
    Comment:

    [1] Organic food;

    [2] No more Monsanto genetically-modified ``food''! I want 
        Genetically-modified food to be labeled for consumer choice. 
        Monsanto can yell and scream about filing lawsuit, but they 
        have no cause of action against anybody for requiring GM food 
        to be labeled! A fully informed consumer is the best consumer.

    [3] Waste no more money on the growth hormone-feces-pus-blood laden 
        pasteurized milk from Big Dairy agribusiness!

    [4] No more dangerous pesticides, including Monsanto's pesticides.

    [5] Supplement the soil with nutritional minerals.

    [6] Support Industrial Hemp farmers, too!
                                 ______
                                 
                     Comment of Michele Zurakowski
    Date Submitted: Friday, April 27, 2012, 12:56 p.m.
    City, State: Oak Park, IL
    Occupation: Food Pantry Executive Director
    Comment: Every day at my job, I help provide food for people in our 
community who cannot afford to feed their families. Clients tell me 
they have to choose between buying food and paying for heat. Often, 
parents don't eat so they can feed their children. Please strengthen 
TEFAP funding so that we may continue to provide needed food for the 
17,000 families who came to our Pantry in 2011. I also ask that you 
fight against any cuts to SNAP funding or eligibility requirements. If 
you could see what I see every day, you would never dream of cutting 
food supports.
                                 ______
                                 
                         Comment of Chad Zuyber
    Date Submitted: Friday, May 18, 2012, 5:24 p.m.
    City, State: Oceanside, CA
    Occupation: Photographer/Model
    Comment: I am outraged by the lack of dedication and responsibility 
of our leaders in protecting our food sources. Many people do not have 
the resources to grow their own food and thus are unable to acquire 
quality nutritious foods. Others are simply ignorant and it is this 
ignorance that agribusiness capitalizes on. We have a growing concern 
for the future of the health of Americans and the best cure is 
prevention. Let's feed our people well and then we can grow and 
flourish as a nation.
                                 ______
                                 
                              Form Letters
          Catholic Campaign for Human Development Form Letter
    Dear Representative,

    As you consider the 2012 Farm Bill, I urge you to support and 
strengthen programs that provide for poor and hungry people in the 
United States and around the world, offer effective assistance for 
those who grow our food, ensure fairness to family farmers and 
ranchers, and promote stewardship of the land.
    I believe the poor and hungry should be given priority as we deal 
with the Federal budget. Cuts to essential safety net programs will 
harm the most vulnerable children, seniors, people with disabilities 
and the unemployed. I also write as a supporter of the Catholics 
Confront Global Poverty initiative of Catholic Relief Services, United 
States Conference of Catholic Bishops, Catholic Charities USA, and the 
National Catholic Rural Life Conference. Those who struggle for food 
and survival, whether in the U.S. or overseas, have a moral claim on 
our nation's resources. I believe that in the face of budgetary 
constraints, the 2012 Farm Bill is an opportunity to address our 
nation's broken and outdated agricultural policies.
    I urge you to strengthen the Senate's 2012 Farm Bill by 
incorporating the following changes into the House Farm Bill:

  <bullet> Preserve funding for the Food for Peace development ``safe 
        box'' at the current $450 million authorized level rather than 
        potentially slashing it to as little as $275 million annually. 
        This program assists chronically hungry people overseas to 
        produce more and better food for their families and end hunger.

  <bullet> Fully fund essential conservation programs such as the 
        Conservation Stewardship Program (CSP), the Environmental 
        Quality Incentives Program (EQIP), the Conservation Reserve 
        Program (CRP), the Wetlands Reserve Program (WRP) and the 
        Grassland Reserve Program (GRP) to promote stewardship of God's 
        creation;

  <bullet> Maintain funding for the Value-Added Producer grants, the 
        Rural Micro-Entrepreneur Assistance Program (RMAP), and ensure 
        access to broad-band telecommunications services for rural 
        communities; and

  <bullet> Redirect subsidies to small and medium-sized farms, 
        especially minority-owned farms and ranches that truly need 
        assistance. The Senate proposal to reduce direct payments is a 
        positive step in decreasing unneeded subsidies. Savings from 
        reductions in subsidies and direct payments should be used to 
        fund and support domestic nutrition programs such as SNAP 
        (formerly Food Stamps) and international food assistance 
        programs such as Title II.

    I also urge you to ensure that the following provisions in the 
Senate 2012 Farm Bill are included in the House Farm Bill:

  <bullet> Adequately fund and oppose cuts and weakening or 
        restructuring of the Supplemental Nutrition Assistance Program 
        (SNAP) that would cut benefits to hungry and vulnerable people. 
        Maintain funding for the Commodity Supplemental Food Program 
        (CSFP) and The Emergency Food Assistance Program (TEFAP) so 
        that people in need in the U.S. can obtain adequate and 
        nutritious food;

  <bullet> Maintain the $2.5 billion funding levels for the Food for 
        Peace program that combats chronic hunger, builds resilience 
        against natural disasters and provides nutritious foods to poor 
        and malnourished families overseas; and

  <bullet> Maintain flexibility in Food for Peace, support the 
        increased cash resources and incorporation of Local and 
        Regional Procurement as proposed in the Senate bill so that 
        more hungry people can be reached.

    The moral measure of our nation's agriculture policies is how they 
serve ``the least of these.'' Thank you for your consideration of these 
policies and programs that save lives and improve nutrition, support 
family farmers and rural communities, and help preserve God's creation.
            Sincerely,

 
 
 
Zebulon Bartels          Robin Bochsler           Deanna Bowers
Bonnie Hackett           Adam Janke               George Rezac
Dan Robinson             Verne Schweiger
 

                                 ______
                                 
                    Food Democracy Now! Form Letter
    U.S. food and agricultural policy must focus on adopting best 
agricultural practices that put the health of citizens, land and 
farmers' livelihoods and farm workers over the interests of industrial 
agriculture lobbyists. I would like to see:

  <bullet> the full endorsement of all provisions of the Local Foods, 
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

    Reports from Washington, D.C. about the farm bill negotiations have 
not been pretty. According to an editorial in the San Francisco 
Chronicle by Environmental Working Group's Ken Cook and Kari 
Hamerschlag, Republicans in the House Agricultural Committee have 
already ``voted to slash $33 billion from the food stamp program while 
leaving farm subsidies unscathed.''
    The editorial goes on to report on the latest agribusiness 
boondoggle that gladly steals food from the mouths of the hungry to 
create a ``$33 billion new entitlement program that guarantees the 
income of profitable farm businesses. That's on top of $90 billion in 
subsidies for crop and revenue insurance policies.''
    If this weren't bad enough, the Senate Agricultural Committee has 
already voted to cut $4 million from organic research funding and cut 
funding to support Beginning Farmers in half. We cannot let this stand!
    At the same time, the Senate Ag Committee has voted to get rid of 
wasteful subsidy payments. It has proposed to replace it with a new 
subsidized insurance program that leading sustainable agriculture 
advocates are calling rife with opportunities for fraud and abuse.
    While Congress is looking to get rid of direct payments to 
commodity farmers, the subsidized insurance program it proposes to 
replace it with will allow giant commodity farmers and insurance 
companies to walk away with billions in taxpayer dollars while putting 
the land, soil and environment at greater risk.
    According to the National Sustainable Agriculture Coalition's Ferd 
Hoefner, ``By failing to place limitations on crop insurance subsidies 
and to re-attach soil erosion and wetland conservation requirements to 
crop insurance programs, the Committee has failed to do the full reform 
that is needed.''
    We can't allow this to happen. Join us today in creating real 
reform and a healthy, organic future

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
                                                        A
----------------------------------------------------------------------------------------------------------------
Inez Agar          Karen Ahlgren      Sholey Argani      Steve Arnold       Kim Atkinson
----------------------------------------------------------------------------------------------------------------
                                                        B
----------------------------------------------------------------------------------------------------------------
Karen Hedwig       Joseph Battaglia   Tony Bell          Geneva Blake       Yolanda Bucio      John Burnett
 Backman
Clifton Bain       Helen Baumgartner  Corey Benjamin     Malcolm Blue       Melissa Buffaloe   Jerri Butts
Adele Baker        Nancy Beavers      J. Beverly         Gloria Bradford    William Burdette
----------------------------------------------------------------------------------------------------------------
                                                        C
----------------------------------------------------------------------------------------------------------------
Jane Capehart      Sharyl Carter      Carmine Caruso     Janet Catt         Richard Chambers   Chris Cherry
Robert Clarke      Jeffrey Couch      John Crand
----------------------------------------------------------------------------------------------------------------
                                                        D
----------------------------------------------------------------------------------------------------------------
Tonya Daily        Sara Danehe        Jim Donovan        Kathy Dunn
----------------------------------------------------------------------------------------------------------------
                                                        E
----------------------------------------------------------------------------------------------------------------
Sarah Edwards      Barbara Eirich     Mary Engstrom      Jonathan Ertelt    Pamela Evans
----------------------------------------------------------------------------------------------------------------
                                                        F
----------------------------------------------------------------------------------------------------------------
Pauline Faye       R. Ferrier         Craig Fiels        Deborah Fine       Paul Finkler       Colleen Floyd
George Foras       Victoria Fuller
----------------------------------------------------------------------------------------------------------------
                                                        G
----------------------------------------------------------------------------------------------------------------
Adam G.            Robert Gammon      A.G. Gilmore       Barb Good          Sheila Gray        Linda Green
Pash Galbavy       Jill Gibson        Marcy Gold         Mary Ann and       Jose Luis Greco    Thomas Groover
                                                          Frank
                                                          Graffagnino
----------------------------------------------------------------------------------------------------------------
                                                        H
----------------------------------------------------------------------------------------------------------------
A. Hamill          Barbara Hannelore  David Harlan       Tom Hicks          Kenneth Hittel     SSG Mary Horgan
Iphigenia Hasara   Joel Hildebrandt   Jenny Hoffman      Karen Husted       Lisa Hardy         Lisa Hendricks
Leigh Hill         Valerie Holmes
----------------------------------------------------------------------------------------------------------------
                                                      I & J
----------------------------------------------------------------------------------------------------------------
Tina Ilvonen       Aria Jackson       Bruce Johnson      Shawn Johnston
----------------------------------------------------------------------------------------------------------------
                                                        K
----------------------------------------------------------------------------------------------------------------
Angela Kantola     Richard Karst      Sherry Kimmons
----------------------------------------------------------------------------------------------------------------
                                                        L
----------------------------------------------------------------------------------------------------------------
Michael            Katie-Lyn Lantow   Tom Lasley         Debbie LeBlanc     Jennifer Lewis     Christine Lofgren
 Lamourreux
Mary Lyda
----------------------------------------------------------------------------------------------------------------
                                                        M
----------------------------------------------------------------------------------------------------------------
Alicia Martin      Diarmaid           Carol Mendez       Maria Minno        Jason Morales      Michele Murto
                    McGleenan
Jeremy Matter      Chris McKellar     Christina          Lisa Miotto        Pamela Morphew     Rick Myers
                                       Mendrinos
D. McCaig          Janine Melrose     Andy Middleton     Dena Moore         Charity
                                                                             Moschopoulos
----------------------------------------------------------------------------------------------------------------
                                                        N
----------------------------------------------------------------------------------------------------------------
Yogi Nasser        David Nelson       Carmen Nichols
----------------------------------------------------------------------------------------------------------------
                                                        O
----------------------------------------------------------------------------------------------------------------
Sue Ocopnick       Michelle           Michael Ohrt       Susan Ohrt         Corey E. Olsen     Bonnie Orife
                    Ognjanovic
Larry Owens
----------------------------------------------------------------------------------------------------------------
                                                        P
----------------------------------------------------------------------------------------------------------------
Sharon Packer      Stefanie           Tia Pearson        Susan Peirce       Barbara Peterson   Amy Pickering
                    Pappalardo
John Pivovarnick   Michael Preston    Donald Ptak
----------------------------------------------------------------------------------------------------------------
                                                        R
----------------------------------------------------------------------------------------------------------------
Nancy Rasmussen    Patrick Reilly     Rodney Rice        Kate Richman       Lia Robb           Donna Rock
Erin Rodriguez     Rolando Rodriguez  Bella Romain       Naomi Rubin        Christiane         Sarah Rutherford-
                                                                             Ruggiero           Bundy
Annie Ryan
----------------------------------------------------------------------------------------------------------------
                                                        S
----------------------------------------------------------------------------------------------------------------
Penelope Sallberg  Nikita Samusev     Alan Sanders       Joseph Savant      Barb Schiltz       Catherine Shraga
Bonnie Singleton   Hannah Stallman    Sandra Stephon     K. Stewart         Lynette
                                                                             Strangstad
----------------------------------------------------------------------------------------------------------------
                                                        T
----------------------------------------------------------------------------------------------------------------
Marcia Tendick     Holger Tressin     Mary Truelove
----------------------------------------------------------------------------------------------------------------
                                                        V
----------------------------------------------------------------------------------------------------------------
Mike Van           Martha Vest        Sarah Vito         Dean von Germeten  Maxim Voronov
 Landingham
----------------------------------------------------------------------------------------------------------------
                                                      W & Y
----------------------------------------------------------------------------------------------------------------
Ethan W.           Dawn Wait          Cynthia Weeks      Sara West          Andrea             Antonio White
                                                                             Westmoreland
Jeffrey White      E.M. Williford     Steve Yakoban      Andrew Yates
----------------------------------------------------------------------------------------------------------------

                              derivation 1
    U.S. food and agricultural policy must focus on adopting best 
agricultural practices that put the health of citizens, land and 
farmers' livelihoods and farm workers over the interests of industrial 
agriculture lobbyists. I would like to see: *
---------------------------------------------------------------------------
    * Editors' note: The following form letter is derivative of the 
Food Democracy Now! form letter. However, since it differs with the 
omission of the main body of the form letter the signatories are listed 
separately.

  <bullet> the full endorsement of all provisions of the Local Foods, 
---------------------------------------------------------------------------
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
                                                      A & B
----------------------------------------------------------------------------------------------------------------
Carol Appleby-     Dawn Baeier        Laura Barnaby      Rebecca Blackbyrd
 Vanko
----------------------------------------------------------------------------------------------------------------
                                                    C, D & F
----------------------------------------------------------------------------------------------------------------
Charlotte          Helen Colby        Joanne Czeck       Carole Doty        Ed Ferrara         Royal Forest
 Carpenter
----------------------------------------------------------------------------------------------------------------
                                                    G, H & K
----------------------------------------------------------------------------------------------------------------
Manon Gaudreau     Gordon Gerbitz     Jill A. Hawtrey    Beth Hilliard      Nancy Hiser        Barbara King
----------------------------------------------------------------------------------------------------------------
                                                        L
----------------------------------------------------------------------------------------------------------------
Mercedes Lackey    Elizabeth LaPenne  David Laws         Mary Leitch        Robin Leroux       Penny Little
Greta Loeffelbein  Michael Losoff
----------------------------------------------------------------------------------------------------------------
                                                    M, P & R
----------------------------------------------------------------------------------------------------------------
Barry Mateer       Charles McCall     Rhoda Mitchell     Patricia Parker    Deborah Ramos      Anita Riksheim
----------------------------------------------------------------------------------------------------------------
                                                    S, T & W
----------------------------------------------------------------------------------------------------------------
Dania Saarony,     Suzanne Shevell    Christopher        Richard Stuckey    Jyll Taylor        Joel Trupin
 M.S., R.D.                            Stephens
Susan Wechsler
----------------------------------------------------------------------------------------------------------------

                              derivation 2
    Tell Congress that you support: *
---------------------------------------------------------------------------
    * Editors' note: The following form letter is derivative of the 
Food Democracy Now! form letter. However, since it differs with the 
omission of the first sentence the signatories are listed separately.

  <bullet> The full endorsement of all provisions of the Local Foods, 
---------------------------------------------------------------------------
        Farms and Jobs Act (H.R. 3286).

  <bullet> Fully funding conservation programs, such as the 
        Conservation Stewardship Program, and making sure that 
        enrollment in any new insurance subsidies are tied directly to 
        compliance with conservation programs.

  <bullet> The implementation of all provisions of the Beginning Farmer 
        and Rancher Opportunity Act (H.R. 3236).

  <bullet> Maintaining the EQIP Organic Initiative.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
                                                        A
----------------------------------------------------------------------------------------------------------------
Amanda Aaron       Sal Alfano         Henry Amador       Heather Angier     Marissa Arias      Diane Augustine
Cindy Abernathy    Jennifer Allan     Julie Amato        Kathleen Angotti   Jennifer           Laura Austan
                                                                             Armerding
Judi Aciego        Maryna Allan       Darryn Ambrose     Matthew Angrisani  Anne Armistead     Lorna Austin
Gordon Adams       Frank Allen        Loren Amelang      Anita Anita        Kathleen           Carolyn Aversano
                                                                             Armstrong
Angie Affolter     Georgia Allen      Kalynn Amundson    Jessica Anklam     Tony Arroyos       Lupe Avila
Bobbi Aguero       Jo Allen           Celeste Anacker    Sir Anomen         Susan Arthur       Ron Avila
Milagros Aguirre   Mindy Allen        Ana Anaya          Gracen Antrobus    Myrto Ashe         Janet Aviles
Sally Ahnger       Nicole Allen       Lee Yen Anderson   Paul Antze         Regina Ashodian    Steve Aydelott
Lauri Aigner       Kathleen Altman    Sherri Andrade     Renita Anzinger    Aram Aslanian
Louis G. Albano    Virginia Alvarado  Tanya Andrew       Vickie Apadula     Artemis
                                                                             Asproyerakas
Anthony Albert     Joanne Alvergue    Emily Andrews      Jimmy Arcade       Carol Assa
V. Alexander       Jen Aly            Melissa Andrews    Angela Arguelles   Evelyn Atkinson
----------------------------------------------------------------------------------------------------------------
                                                        B
----------------------------------------------------------------------------------------------------------------
Nancy Baer         Mark Beattie       Laura Bernstein    Scott Boggs        Cecilia Boyer      David Brultz
Elyse Baggen       Alex Beaty         Kelly Berry        Matthew Bogosian   Lindsey Bozeman    Heather Bruner
Joyce Bagley-      David Beaulieu     Jane Berryhill     Rodney Bogusch     Debra Brackett     Ron Brunk
 Menges
Thomas Bahr        Paul Bechtel       Cathy Bertinuson   Stephen Bohac      Dale Braiman       Yvonne Brunot
J. Adam Bailey     Carol Becker       Leonard            Amanda             Georgia            Judy Bryce
                                       Beszczynski        Boldreghini        Braithwaite
Lynne Bailey       Jennifer Becker    Alex Betser        Luise Bolleber     Steve Branch       Cathy Buckley
Jordan Bain        Gary Beckerman     David Bigelow      Jane Bollinger     Will Branch        Marian Buckner
Ashley Baker       Peter Bedard       Lindsey            Sue Bonar          Casey Brandt       Terri Bullert
                                       Billesbach
Cathy Balan        Tracy Bedford      Deborah Bird       Robin Bonswor      Crystal Brandt     Roger Bultot
Valerie            Victoria Beerman   Elaine Bisbey      Susan Booker       Pamela Brandt      Joyce Buragino
 Baldisserotto
Brittany Baldwin   David Belcher      Robert Bishop      Hedy Bookin-       Michael Branigan   Renee Burchfield
                                                          Weiner
Lee Baldwin        Mary Belknap       Sarah Bishop       Kathy Boone        Chris Bratt        Marti Burgan
Cedric Balozian    Evelyn Bell        Roger Bius         Barrington Boothe  Amy Breakwell      William Burgess
Marcia Bandes      Jonathan Bell      Eric Bivona        Deborah Boots      DeLane Bredvik     Erin Burke
Nathan Banks       Marjorie Bell      Barron Black       Linda Borcher      Drew Brenner       Paul Burke
Sharon Barbell     Peri Beller        David Blair        Gary Boren         Elizabeth          Kathleen Burke,
                                                                             Brensinger         R.N., C.S.
Eugene Barber      Luis Beltran       Stephanie Blair    Bridget Borer      Lisa Brewer        Terri Burney-
                                                                                                Bisett
John Barbett       M. Bendahan        Thom Blair III     Edith Borie        Jeffrey Briggs     Dale C. Burns
Connie Barker      Phyllis Bengtson   Chai Blair-Stahn   Gavin Bornholtz    Elisabeth Brooks   Phoebe Burns
Brandon Barnard    David Benjamin     Michelle Blake     David Bosch        Jason Brooks       Nancy Burr
Phoebe Barnes      Donna Benjamin     Terry Blanchard    Patrick Bosold     Sam F. Broughton,  Jon Burrell
                                                                             Ph.D.
Stephen Barr       Paul Bennett       Phil Blaustein     Robert Bost        Amy Brown          Karen Burroughs
Dennis Barrett     John Benschoter    Joan Blessing      Jeremiah Bostick   Assata Brown       Grace Burson
Willard Barry      Mary Benson        Paulette Bliss     Shavon Botsford    Ayra Brown         Betsy Burton
Alan Bartl         Kathleen Bentley   Emily Blitz        Andre Bougher      Bernie Brown       Vic Burton
Nick Bartol        Richard Bentley    Andrea Bloom       Naomi Bourne       Beth Brown         Ingrid Bush
Kevin Bartoy       Kristina Berg      Jerry Bloomer      Marlene Boven      Deborah Brown      Julie Bussgang
Brian Battisti     Kevin Berger       Susan Blubaugh     Joyce Bowen        Jason Brown        Joan Butcher
Melissa Bauer      Darcy Bergh        Kaci Blue          Chris Bowker       Jeff Brown         E.J. Butler
Mariah Bauman      Yvonne Bergholm    Eric Blum          Kristi Bowman      Jennifer Brown     Rachel Bynum
Ruby Baxter        Daryl Bergunder    Matthias Blumrich  Marina Bowsher     John H. Brown      Charles Byrne
Cathy Bayne        Nicole Berkheimer  Melantha Bobrick   Kenneth Boyd       Kevin Brown
Bret Beall         Mylene Berkowitz   Casey Bodden       Patty Boyd         Laura Brown
James Paul Beam    David Berkshire    Karin Bodingius    Renee Boyd         Rachael Bruce
Jacob Bean         Brook Bernini      Lisa Bogar         Lorraine Boyden    Danielle Brugnone
----------------------------------------------------------------------------------------------------------------
                                                        C
----------------------------------------------------------------------------------------------------------------
Brian Cady         Stef Carson        Timothy Cheston    Roxanne Cole       Molly Coon         Daniel Crandall
Carla Caesar       Bonnie Carter      Eileen Chieco      Shoshanna Cole     Matt Cooney        Jaime Crandall
Melissa Cain       Frances Carter     Brian Chisholm     Susan Coleman      Elizabeth Cooper   Bob and Marcy
                                                                                                Crawford
Van Cain           Lori Carter        Nancy Chismar      Coles              Jamie Cooper       Lani Crawford
Benjamin Caire     Samuel Carter      Gwynyth Chmara-    Geri Collecchia    Nan Cooper         Dennis Crean, Jr.
                                       Huff
Ashley Caldwell    Cynthia Casey      Karen Christian    Michael Collier    Nancy Cooper       Mark Creighton
Burton Callicott   Kathleen Casey-    Linda Church       Sherry Collier     Nina Cooper        Brando Crespi
                    Zeitz
Vincent Campanaro  Richard Cassese    Glenn Churchill    Jean Colombo       Tiffany Cooper     Marshall Crews
Gracie Campbell    Jessie Casteel     Barbara Clark      Cameron Coltrain   Margaret Copi      Helen Crisp
Robin Campbell     Alice Castellano   Donald Clark       Maria Concilio     Margaret           Fona Crockett
                                                                             Coppenrath
Serena Campbell    Linda Castle       Jerry Clark        Angela Cone        Gretchen Corbin    April Crook
Steven Campbell    Michael            Laura Clark        Robin Conley       J.C. Corcoran      Carolyn Croom
                    Castleberry
Amy Cannata        Lorraine Castro    Terrence Clark     Karin Connelly     Joe Corio          Clinton Crow
Susan Canning      M. Catchpole       Charlene Clegg     Karen Conniff      Devin Cormia       Bill Crowley
Angela Cape-Baker  Mary Cato          Steven Clements    Cameryn Conrad     Deborah Cornett    Kate Crowley
Jason Cara         Kent Caudill       Karoli Clever      Keith Conrad       Alejandro Cortes   Deborah J. Cruz
Diana Cardillo     John Chamness      Pamela Clum        Kjirsten Conrad    Meagan Costea      John Csaszar
Zoe Carlberg       David Chandler     A. Cobbett         Arthur Conrady     Justin Cote        Emily Cumbie-
                                                                                                Drake
Stephen Carll      Patricia Chang     John Cobey         Sophia Conroy      Elina Coulter      Johanna Cummings
Marcia Carlson     Alexander Chapman  Alice Coffey       Barbara Consbruck  Carole Courtney    Judith Cummings
Margaret Carlson   Michelle Chappell  Dianna Cohen       Laura Contreras    Katie Covello      L. Cummings
Nancy Carlson      Rachel Chaput      Laurel Cohen       S.R. Converse      Caryn Cowin        Erica Curry
Beth Carr          Lorig Charkoudian  Mark Cohen         Chris Cook         Michael Cox        Kieran Cusack
Chuck Carr         Andrea Chavez      Robert Cohen       Jonathan Cook      Phillip J.         Carol Cutler
                                                                             Crabill
J. Carr            Michele Chavez-    Robin Cohen        Kristin Cook       Aaron Craelius     Elizabeth
                    Pardini                                                                     Cutright
Patrick Carraher   Emily Chen         Alison Cohn        Brian Cooke        Laura Craig        Trina Cysz, RN-C,
                                                                                                B.S.N., M.P.H.
Niall Carroll      Chiu Cheng         Rachel Cohn        Cathy Cooke        Toni Craige
Thomas Carsner     L. Cherry          Joan Colbert       James Cooke        Tess Cramer
----------------------------------------------------------------------------------------------------------------
                                                        D
----------------------------------------------------------------------------------------------------------------
Lori Dafilou       Steven Davies-     Karen Dearborn     Kathryn Deputat    Mia Distasi        Griswold Draz
                    Sigmund
Joanne Dahill      Ramon Davila       Brittany Dearing   Dr. Pamela Derfus  Dana Dixon         Jane Drews
Alan Dahl          Ann Marie Davis    Brian Debasitis    Jennifer Derricks  Linda Dodderidge   Jennifer Driscoll
Lindsay Dahl       Cornelia Davis     Cynthia            Jane Derrington    Anthony Doherty    Richard Drummond
                                       Debenedetti
Barbara Dalbey     Karmin Davis       Michelle DeCarlo   Brett DeSchepper   Susan M. Dolinar   Stephen Drury
Tommy Daly         Kathy Davis        Liz Dee            Rosemary DeSena    Francine Dolins    Sharron Due
Patricia Damron    Laura Davis        Bruce DeGroot      Denise Desplaines  Sharon Dolleman    Corey Dugan
Jennifer Daniel    Rebecca Davis      Bob Delaney        Stephen Devakow    Jessica Donahue    Thomas Dukes
Paul Daniello      Virginia Davis     Clairone Delaney   Kary DeVaney       Josh Donald        Lisa Dumaw
Roy Daniels        Craig Dawson       M. Delatte         Rhonda Devereaux   Mike Donnoe        Jennifer Dunham
Mark Dankoff       Robert Dawson      Susan Delattre     Lisa Devore        Tim Donovan        Cumie Carol Dunio
Carrie Darling     Brooke Day         Renee Deljon       Kathy Dickerson    Matthew Doughty    Deborah Dunivant
George Darling     Hannah Day         Judi Dellino       Cheryl Dickson     Andy Douglas       Debra Dunlop
Melinda Dastrup    Jeremy Day         Adriane Dellorco   Isabel Dickstein   Leah Douglas       Deborah Dunn
Sherry Daugherty   Joe Day            Ellen Delo         Greg Dietrich      Noel Douglas       Susan Dunn
Janis David        Christina de la    Chris DeLucia      Tonya DiFiore      Zak Douglas        Eve Duplissis
                    Fuente
Mollie David       Jackie de Vries    Debra Demske       Jessie Dijkstra    Alan Douglass      Judith Dupree
Amelie J.          Milan de Vries     Gudrun Dennis      Jordan Dilger      Lauren Dowdy       Esme Dutcher
 Davidson
Jill Davidson      Mark Deakins       Stephanie Dennis   Bethany Dilworth   Natalie Dowty      Melissa Duttle
Dorothy Lynne      Katherine Dean     Christopher        Lydia              Sheri Doyel        Doug Dyer
 Davies                                DeNoia             DiMarcantonio
May Davies         Carol Deantoni     Richard DePrizio   Matt Dingle        Matthew Doyle
----------------------------------------------------------------------------------------------------------------
                                                        E
----------------------------------------------------------------------------------------------------------------
Bradley Eardley    Martha Edelheit    Kathleen Edwards   Margaret           Brad Engler        Glenn Esler
                                                          Ellingson
Chelsea Earnhardt  Willa Edgar        Sheila Edwards     Ashley Ellis       Cynthia Enlow      Carl Estes
 Plax
Christian T.       T. Edick           Cara Effinger      David Ellis        Frances Enriquez   Gregory Esteve
 Eaton, M.D.
Anne Ebbers        Emunah Edinburgh   Debbie Egan        Glenda Elmer       Kurt Erbach        S. Etherton
Michele Eby        Barbara Edwards    Erin Eggleston     Kate Elsgree       Barry Ergang       Ronald Eubanks
Diane Echlin       Eric Edwards (IL)  Kathryn Ek         Lezlie Ely         Kinara Erickson    Mary Evans
Alyse Eckenrode    Erin Edwards (NY)  Carl Ekholm        Brian Emerson      Cathie Ernst       Sandra Eve
Tatyana Eckstrand  Jenna Edwards      Elizabeth Elgin    Rev. Kathy Engle-  Jamie Ervin        Sarah Evers
                                                          Dulac
----------------------------------------------------------------------------------------------------------------
                                                        F
----------------------------------------------------------------------------------------------------------------
Carrie Fairchild   Myrna Felix        Larry Fishman      Mason W. Foley     Anne-Lise          Sarah Frost
                                                                             Francois
Jennie Fairchild   Linda Fellows      Ted Fishman        Richard Ford       Alissa Frank       Josephine Fuentes
Jeffery Fare       Janet Felton       Ann Fitzgerald     Tyson Ford         Cynthia Frank      Max Fuentes
Charles Faris      Daniel Fenner      Shawn Fitzgerald   Scott Forno        Elisa Frank        David Fuerstenau
John Farley        Stephen Fenning    Erik Fitzpatrick   Linnea Forseth     Larry Frank        Greg Fuess
                    Terlitzky
Cameron Farlow     Steven Fenster     Jodi Fitzpatrick   Cheryl Forster     Korrine Fraser     Chris Fuhrmann
Christine Farlow   Julia Ferguson     Stephen Flanery    Eric Fosburgh      Emily Fredericks   Sheila Fuller
Tara Farris        Steve Ferguson     Karen Flaugh       Delaina Foster     Geri Freeman       Paul Fung
Cary Fassler       Zachary Ferguson   Grace Fleischman   Robert Foster      Stormie Freimarck  Rachel Fussell
Linda Faste        Mauro Ferrero      Chris Fleming      Rosemary Foutts    Andrew Frey        Enid Futterman
Jared              Kathy Ferrier      M. Kay Fleming     Kristi Foutz       Amy Frieden
 Featherstone
David Fedor-       Monica Ferry       Karen Fletcher     Jason Fox          Cari Frisch
 Cunningham
Karen L. Fedorov   Robbee Fian        Cheryl Flinn       Lori Fox           Ciara Fritsch
Mary Feeser        Maria Fili         Brieanne           Irena Franchi      Bert Fritz
                                       Fluewelling
Skylar Fegel       Andrew Fisher      Eileen Foley       Arturo Franco      Monica Frolander-
                                                                             Ulf
----------------------------------------------------------------------------------------------------------------
                                                        G
----------------------------------------------------------------------------------------------------------------
Donna Gaab         Donna Garrison     Daniel Giesy       Nancy Goldstein    Joan Gough         Kelly Grindstaff
Joyce Gabay        Lydia Garvey       Dr. David          Noah Goldstein     Pat & Gary Gover   Burt Griswold
                                       Gilbertson
Robert Gabriel     Jane Garvin        James Gillaspie    Melissa Golladay   Harvey Grady       Lisa Groenewold
Julie Gaertner     Anna Gasner        Emma Gimon         Remigio Gongon     Jeanne Graffin     Norah Grooms
Leigh Gage         Cali Gaston        Evrith Giovenco    Jorge Gonzalez     Ileana Grams-Moog  Karen Gropper
Regina Galbick     Tusi Gastonguay    Juan P. Girardi,   Leo Gonzalez       Nina Grant         Elizabeth
                                       MA, MS                                                   Groscost
Sean Gallagher     Roberta Gates      Winnie Givot       Melissa Gonzalez   Chuck Graver       Harvey Gross
Susan Gallegos     Christopher        Sarah Gladstone    Suzanne Goodelman  Caryn Graves       Diane Grotheer
                    Gautrau
Elena              Beth Gehman        Elizabeth Glasgow  E. Gooding         Donna Greathouse   Marilyn Grotzky
 Gallenberger                                                                Neel
Pamela Gandy       Maggie Gelber      Jamie Glass        Diane Goodman      Kimberly Grebert   Steven Gruchawka
Rob Ganger         Kerry Gendron      Kevin Glatzel      Rhea Goodman       Rhyan Grech        Anthony Grudin
Valeska Gann       Carl Gendvil       Jena Glaze         Tyler Goodman      Ann Green          Lisa Grutzmacher
Marc Garber        Todd Gentry        Allison Glennon    Catherine Goodrum  Judith Green       Jennifer Guajardo
Sandra Garber      Carol George       Art Glick          Kahlil Goodwyn     Nell Green Nylen   Peter Guarino
Gregory Garbinsky  Justine George     Avi Glickstein     Alexandra Gordon   Deborah Greene     Ann Guirao
Kathe Garbrick     Mary George        Lydia Gnos         Karen Gordon       Susan Greenough    Elizabeth Gulley
Debra Garcia       Michael Gerken     Ann Gobert         Marcy Gordon       Sandra Greenwald   Ellen Gumbiner
Peggy Gardner      Carey Gersten      Emily Godfrey      Sarah Gordon       Gary Gregerson     Mindy Gungor
Domenic Garefino   Tully Gibbons      Lisa Goetz         Arnold Gore        Maura Gregory      Elizabeth Gupton
Michael Garitty    Susan K. Gibbons,  John Goforth       David Gorrell      Amy Griffin        Annette Gurdo
                    M.D.
Holly Garland      Vicki Giella       Bethe Goldenfield  Kally Goschke      Robert Griffin     Erin Gurdziel
Christopher Garre  Rita Gier          Sandy Goldman      Chailley Goss-     Earline Griffith   Andrew Gustus
                                                          Garner
Marjo Garrioson    Jolene Giese       Steven Goldman     Lyn Gottschalk     Eddie Griffiths    Hamilton
                                                                                                Gutierrez
----------------------------------------------------------------------------------------------------------------
                                                        H
----------------------------------------------------------------------------------------------------------------
Kevin Haas         Diane M. Hanson    Mary Hathaway      Winifred Herberg   Cathy Holden       Natalie Houghton
Kenneth Habeck     Grace Hanson       Joan Hathaway-     Katherine Herbst   Stephen Holden     Carl Howard
                                       Sheldon
Pamela Haddad      Larry Hanus        Erik Haunold       Richard Hermann    Deborah Holder     Lina Howard
Sarah Hager        Carla Happel       Robert Havrilla    Irene Hernandez    Lynne Holley       Eryn Howe
M.C. Hagerty       Sherry Happel      Jenny Hawke        David Heron        Olympia Holliday   Holly Howell
Kyle Hahn          Kristen Harbour    Wendy Hawkins      J. Michael Herr    Marjorie Holman    Mary E. Howie
Avi Haimowitz      Sondra Hardgrave   Denise Hayashi     Jonas Herzog       David Holmes       Emma Hoyt
Ellen Hakes        Kris Harker        Janice Haynes      Hillary Hess       Helga Holtmann     Jacklyn Hsu
Eileen Hale        Linda Harkness     Linda Haynes       Lory Hess          Daeryl Holzer      Susan Hubbard
Scott Hale         J. Harmon          Tessa Haynes       Susanne Hesse      Kim Hood           Amara Huckabone
Jeremy Halinen     Tyler Harmon-      McGregor Hayslip   Thea Hetzner       John Hope          Stan Huff
                    Townsend
Ann Cox Halkett    Andrea Harms       Kris Head          Todd Heyman        Courtney Hopkins   Beth Hufnagel
Chris Hall         Greg Harness       Mark Heald         Jane Hickey        Laura Hopkins      Carole Hughes
Gina Hall          Frances Harriman   Fran Healey        John Higby         Martina Hopkins    Christine Hughes
Patrick Hall       Johnny Harris      Diane Heath        James Hill         Kate Hoppe         John Hughes
Will Hall          Melanie Harris     Wanda Hebert       Sarah Hiller       Cynthia Hoque      Sheryl Humphrey
Brian Hallas       Richard Harris     Elizabeth Hebron   Lisa Hillmann      Julia Horn         Kim Humphreys
Rob Hambleton      Nancy Harrison     Christine          Patricia Hilton    Karen Horn         David Hunn
                                       Heinicke
Bob Hamburg        Thomas Harrison    Jill Heishman      Lisa Hilyer        Leslie Horst       Paul Hunter
Lisa Hamill        Linda Harrour      Gina Helfrich      Lani Hink          Patricia Horter    Eric Hurt
Jeremy Hammer      Allegra Hart       Frank Heller       Howard             Blair Horton       Celeste Huss
                                                          Hinterthuer
Dian Hampton       Susan Hart         Keith Helmkamp     Serena Hirst       Jennifer Horton    Nicole Hutchinson
Maredy Hanford     Danyela Harting    Daria Hemmings     Dessa Hix          Martin Horwitz     Frederica Huxley
D. Bridget Hanley  Gregory Hartley    Deborah Hemphill   Harold T. Hodes    Rebecca Horwitz    Margaret Hyland
Jackie Hannahs     Clifton Hartsuff   Meghana Hemphill   Julia Hoel         Jessica Hose       Maureen Hyslop
Megan Hannan       Erik Hartten       Devin Henry        H. Hoffman         Pamela Hosler
Alan Hansen        Diane Hashem       P. Henry           Mike Hojnowski     Lee Hostick
Art Hanson         Pamela Hatch       Pamela Henry-      Ashley Holbrook    Tom Hougham
                                       Biskup
----------------------------------------------------------------------------------------------------------------
                                                        I
----------------------------------------------------------------------------------------------------------------
Paula Iasella      Lori Idso          Paul Impola        Deborah Irwin      Justin Isaacs      Anthony Israel
Rebecca Iverson
----------------------------------------------------------------------------------------------------------------
                                                        J
----------------------------------------------------------------------------------------------------------------
Courtney Jackson   Paul Janyja        Darynne Jessler    Connie Johnson     Rene Johnson       Jeff Jones
Rick Jackson       Andres Jaramillo   Barbara Jester     Dale Johnson (CO)  Richard Johnson    Lauren Jones
Shawn Jackson      Meghann Jarchow    Sarah Jewell       Dale Johnson (WI)  Sadie Johnson      Margaret Jones
Marie-Louise       Thomas Jefferson   William Joersz     David Johnson      Sarah Johnson      Sandy Jones
 Jackson-Miller
Susan Jacobson     David Jennings     Anne Johnson       Lanie Johnson      Shara Johnson      Phoebe Joseph
Matt Jager         Kristy Jensch      Blake Johnson      Laura Johnson      Elizabeth Joiner   Karen Judd
Mike Jaklitsch     Alyson Jensen      Candace Johnson    Maile Johnson      Susan Jolicoeur    Cecilia Jude
Jess James         Teresa Jenson      Clifford Johnson   Michael Johnson    Elizabeth
                                                                             Jonasson
----------------------------------------------------------------------------------------------------------------
                                                        K
----------------------------------------------------------------------------------------------------------------
Chuck Kaiser       Sondra Katz        Katelyn Kenderish  William King       Leslie Kneeland    Steven Kostis
Kellen Kaiser      Mollie Katzen      Kalai Kennedy      Dan Kinnucan       Donna Knipp        Malichansouk
                                                                                                Kouanchao
Laura Kaiser       Rachel Kaufman     Marita Kennedy-    Donna Kirik        Carolyn Knoll      Josef Kozaka
                                       Castro
Katherine          Joel Kay           Liese Keon         Shanna Kirk        Brad Knopf         Joan Kozar
 Kalajainen
Karen Kan          Aliza Keddem       Hugh Keown         Jerome Kirsling    Claire Knowlton    Daniel Kozminski
Jane Kane          Chris Keefe        Gwendolyn Kerber   Irene Kitzantides  Karla Koch         Susan Kraft
Karen T. Kane      Carole Keene       Kathryn Keul       Michael Klausing   Zoya Kocur         Maria Krahn
Nadia Kanhai       Dylan Keenen       Gurumustuk Khalsa  Robert Klein       Diane Koenig       Barbara Krall
Linden Kaniewski   Michael Keeney     Hari Khalsa        Rebecca Klemme     Robert Kogan       Eytan Krasilovsky
                                                          Eliceiri
John Karish        John Keiser        Harinam Khalsa     Daniel Klonsky     Alyssa Kohlman     Doug Krause
Jacob Karlins      Jerry Keller       Kulwant Khalsa     Linda Klosky       Jordan Kojouharov  Lisa Krausz
Peter Kasabian     Lee Keller         Eckhart Kiesel     Marc and Jill      Michael Kolman     David Kreiss-
                                                          Klosner                               Tomkins
Alexis Kassan      Sarah Keller       Agoya Killeen      Kari Knabe         Ryan Konopinski    Dan Krekeler
Julie Katana       Emily Kellndorfer  Gwen Killheffer    Richard Knablin    LeaAnne Koppen     Mariann
                                                                                                Kromenacker
Jean Katayama      Lorie Kellogg      Dawn Kimble        Kristan Knapp      Sam Koprak         Mary Kroninger
Daisy (Dorothy)    Gerald Kelly       Lawrie Kimbrough   Peggy Knapp        Karen Koritko      Linda Krueger
 Kates
Braun Kathy        Ross Kelman        Julie Kimmel       Hilary Knause      Mary Ellen Korman  Edward Kuczynski
David Katz         Rebecka Kempton    Heather King       Judith Knauss      Judith Kory        Suzanne Kuffler
Ronald Katz        Anna Kendall       Tristan King       Nathan Knecht      Dawn Kosec
----------------------------------------------------------------------------------------------------------------
                                                        L
----------------------------------------------------------------------------------------------------------------
Sharon Lacy        Betty Laufer       Wayne Leggett      Jo Ann Lesser      Peter Linde        Jeanette Louis
Stephen Ladd       Marie Laughlin     Audra Lehman       Adrie Lester       Lynda Linke        Cynthia Love
Brad Lagorio       Rhett Lawrence     Susan Leibowitz    Debra Letchworth   Leslie Linnebur    Surrender Love
Mark Laity-Snyder  Joseph Lawson      Jodie Leidecker    Michael Letendre   Doug Linney        Barbara Lowe
Rhonda Lakatos     Karen Lawson       Ingrid Leigh       Helen Levin        Lisa Lintner       Jillayne Lowe
Mark Lamore        Judith Layman      Nancy Leiserowitz  Russell Levine     Amy Lippert        R. Lowis
Ruth Lampe         Martha Layman      Cornelia Lemke     Michael Levinson   Janet Lipstreu     Carol Lowry
Doug Landau        Luan Le            Sybil Lemke        Nancy Levy         Shaun Little       Sara Lowry
Gordon Landis      Brian Le Gette     Robert Lemlin      Erma Lewis         Glynis Litwin      Rachel Lowther
Robyn Landry       Dr. Andrew         Sarah Lenoue       Mark Lewis         G. Liu             Gabe Lozano
                    Leavenworth
Hannah Landsman    Jeffry LeBlanc     Alejandro Leon     Roberta Lewis      Deja Lizer         Carol Lubetkin
Barry Langford     Faye Lederman      Robert Leon        Lisa Li            Sofia Ljuslin      Felice Lucero
Theresa Lantz      Jessica Ledger     Greg Leonard       Ming Jiu Li        Alan Lloyd         Keth Luke
Barbara Lapidus    Catherine Lee      Lee Leonard        Harry              Tarah Locke        Edmund Lundberg
                                                          Lichtenstein
Pamela Lappies     Christopher Lee    Monique Leonard    Lee Liebmann       Beverly Loder      Jim Luongo
Catherine Laramee  Eric Lee           Tom Leonard        Alan Liechty       Elizabeth Logan    Jana Lussier
Judy Larson        Gary Lee           Leslie Lepeska     Steve Lieland      Dave Loiselle      Jim Lutz
Susan Larson       Karen Lee          Kate Lepisto       Nancy Enz Lill     Katharine Loman    Elizabeth Lynn
M. Larue           Todd Lee           James Lerch        Angela Lilly       Sonya Lopez        Laura Lyons
Max Lau            Claire Leeds       Michelle Lerner    Tim Lilly          Leng Lor           Mary Lyons
Pamela Lau         Connie Legare      Virginia Leslie    Glenyss Lim        Ruth Lorenz        Kipley Lytel
Suzanne Laucella   Gail Leger         Angela Lesser      Christina Lin      Gregory Louie
----------------------------------------------------------------------------------------------------------------
                                                        M
----------------------------------------------------------------------------------------------------------------
Vajra Ma           Katherine Marks    Haven McClure      Mark Mellinger     Clifford Minor     William Morrison
Barbara MacAlpine  Justin Marlin      Brian McCollum     Bernadine Mellis   Sharon Minor       Jackie Morrissey
Angus M.           Judith Maron-      Nina McCollum      James Melloh,      Nancy Minter       Pamela Morrow
 Macdonald          Friend                                M.D.
Leah Mack          Hilda Marshall     Barney McComas     Abigail Meloche    Alicia Mishinski   Cynthia Morse
Ellen Mackall      Tara Marshall      Lynette McComas    T. Meloche         Kathy Missal       Robert Morse
Michelle           Karen Martakos     Robert McCombs     Joe Melton         Sandra Mitchell    Kerry Mortensen
 MacKenzie
Craig Mackie       Bob Marti          Doris McCormick    Kathryn Melton     Melanie Mitzner    C.H. Moskowitz
Chris MacKrell     R. Marti           Nicole McCormick   Gregory Menard     Ruth Mohr          Paul Moss
Rhys MacLean       Elizabeth Martin   Richard McCormick  Melani Menendez    Maya Moiseyev      Torben Mottes
Patricia Macy      Frances Martin     Jene McCovey       Lynda Menkhaus     Clay Moncrief      Wanice Mottola
Emily Madara       Leonide Martin     Diane McCoy        V. Merchant        William Moncus     Kim Motylewski
Guillermo Madrid   Linda Martin       T.K. McCranie      Jackie Merino      Abigail Monihan    Christie Moulton
Leigh Magee        Mary Kay Martin    Tom McCurry        Graham Meriwether  Patricia Monroe    Stephen Mudrick
Rosemarie          Monte Martin       Joanne McDonnell   Krista Merrihew    Danielle Montague- Kirstin Mueller
 Magliato-                                                                   Judd
 Chrissotimos
J. Magnano         Terry Martin       Bridget McElroy    R. Meservve        J.K. Montanaro     Marilyn Mueller
Lisa Mair          Micah Marty        Mary McGann        Joni Metcalf-Kemp  Peter Monteleone   Mary Beth Mueller
Joshua Maizel      Kathleen Marx      Gary McGivney      Ari Meyer          Deirdre            Rafeak Muhammad
                                                                             Montgomerie
Marc Major         Christine Mason    Mindy McGovern     Bonnie Meyers      William Mooney     Jennifer Muhr
Erika Maki         Rich Mason         Terrence           Gerri Michalska    Cheryl Moore       Carol Muise
                                       McGovern, Jr.
Marie Malanaphy-   John Massman       Richard McGowan    Leah Michels       Greg Moore         Tiffany Mulford
 Sorg
Robert Malcomnson  Lisa Mastalier     Molle McGregor     Karen Mickler      Mary Moore         Jen Mullen
Sherrie Rose       Mary Masters       Julianna McGuire   Eliza Migdal       Claire Moran       Tina Munson
 Maleson
Betty Mallorca     Ashley M. Mathis   Chad McIntyre      Brian Mihok        David Morf         Joseph F.
                                                                                                Muratore
Maureen Mancini    Martha Mattes      Jean McKay         Joanna             Kathleen Morgan    Elizabeth Murdoch
                                                          Mikolajczuk
Marcia Mandelberg  Laurell Matthews   Tienne McKenzie    Amber Milam        Merri Morgan       Wendy Murdoch
Lauren Mangini     Scott Mauer        Kathinka McKeown   Rachel Milgroom    Sharon Morgan      Hanifah Murfin
Jay Mankita        Marie Mauger       Shawnee McLemore   Brad Miller        Richard Morgese    Sarah Murfin
Marianna Manley    Barbara Mauk       Sharon McMenamin   Donald Miller      Naoko Morita       Carol Murphree
Jeffrey Mann       David May          Colleen McMullen   Natalie Miller     Lydia Morken       Andy Murphy
Jennifer Mann      Janelle May        William McMullin   Susan Miller       James Morman       Callie Murphy
Mark Mansfield     Vanna May          Nina McPherson     David Millett      Melody Morrell     Katy Murphy
Robin Marco        Craig Mazer        Ryan Meade         J.L. Tuck          Sophia Morren      Sean Murphy
                                                          Milligan II
Susan Mardock      Kyle McAdam        Emily Meath        Celia Milota       Francis Morris     John Mutzberg
Laube Marga        Alan McAllister    Reshma Mehta       Laurel             Jennifer Morris    Larkin Myers
                                                          Miltenberger
Joanne Marino      Michael            Yvonne Meijering   Randy Mims         Nancy Morris
                    McAllister
Derek Markham      Matt McCafferty    Ruby Meister       Michael Miner      Sue and John
                                                                             Morris
John Markowitz     Sara McCay         Joshua Melino      Cindy Mingus       Sharon Morrison
----------------------------------------------------------------------------------------------------------------
                                                        N
----------------------------------------------------------------------------------------------------------------
Naomi Nachun       Katherine Nelson   Laura Nevins       Elizabeth Nguyen   Pauline Nivens     Scott Norris
Donald Nadeau      Kirk Nelson        Lara Newbold       Laura Nicholson    Debra Nix          Susan Norwood
D. Narveson        Robert Nelson      H. Newcomb         Pam Nicolai        John Nix           James Nowack
Patty Navarrete    Barbara Neri       Linda Newkirk      Rael Nidess, M.D.  Neal Nollette      Maryann
                                                                                                Nowakowski
Vera Nazon         Timothy Nero       Darla Newman       Jami Nielsen       Daphne Nolte       Donna Noyes
Larry Needleman    Sonia Ness         Mark Newman        Greg Nielson       Nora Norback       Pat Nudd
Erin Neff          Ruben Neves        Sanford Newmark    Carol Niemi        Jeannette Nord     Devon Nuno
Layne Negrin       Deanna Neville     Mary Neyland       Eufren Ninancuro   Lanette Nordquist
                                                          Ramos
----------------------------------------------------------------------------------------------------------------
                                                        O
----------------------------------------------------------------------------------------------------------------
Tijana             Nancy O'Byrne      Jennifer Dryden    Margot Olavarria,  Melissa Oresky     Ruth Ostrenga
 O'Ceallaigh                           O'Donnell          Ph.D.
Antoinette         Thomas Ocampo      Meghan O'Donnell   Joe Oliveto        Robert Orzel       Shawn O'Sullivan
 O'Connell
Elizabeth O'Hara   John O'Connor      Kevin O'Hagen      Karin O'Loughlin   L. Osborn          Michael Osweiler
Benjamin O'Brien   Casey Odom         Patrick Ohanlon    Janna Olson        Molly Osborne      Tracy Ouellette
William O'Brien    Deanne O'Donnell   Janet Oja          Rachel Onuf        Lara Oshon
----------------------------------------------------------------------------------------------------------------
                                                        P
----------------------------------------------------------------------------------------------------------------
Gail Pacurai       Luke Parkhurst     Elizabeth Pavka    Dina Pesenson      Mary Pierce        John Prance
Rebecca Padgett    Diana Parmeter     Jessica Paxton     Cynthia Peters     Jeremy Pihl        Alison Pratt
                                                                                                Shelling
Mike Pagan         Debbi Parrott      Kendra Pearsall    Kyle Peterson      Kiley Pike         Elizabeth
                                                                                                Pressman-Cooper
Heidi Page         Victoria           Jane Pearson       Tina Peterson      Joan Pinkert       Bonnie Presti
                    Parruccini
Nick Page          Adam Parsons       Sue Ann Peck       Julia Petipas      Jack Pliskin       Carl Pribanic
Julia Pais         Shireen Parsons    Robert Pekrul      Bethanie Petitpas  Lawrence Plumlee   Karen Price
Laura Pakaln       Harla Partridge    Sandra Pelletier   Susan L. Petrella  Christy Plumly     Amy Priest
Margaret Pallas    Ms. Parvati        Andrea Pellicani   Bryan Petrulis     Raymond Poincelot  Yvonne Prinz
Kristin Palmejar   Richard Pasichnyk  Marguerite Pelose  Rhonda             Jason Pollens      Melissa Probst
                                                          Pfaltzgraff-
                                                          Carlson
Peter Pamplin      Karman Pate        Mattie Perelman    Gary Pfeffer       Elizabeth Poole    Melissa Prochnow
April Panknin      William Patrick    Sandra Perkins     Jeanette Phelps    P.C. Porter        Damian Puggelli
Alexander Pappas   Marcia Patt        K. Perlman         Matt Piccone       Sebastian Posern   Barry Pulley
Christian Pappas   Anne Patterson     Amy Perrin         Stacy Pickhardt    Flavia Potenza     Patricia Purcell
Diana Paradise     Brett Patterson    Renee Perry        James Pickrell     Theresa Poulin     Caleb Pusey
Jen Paredes        James Patterson    Raymond Person     Diane Pienta       Mark Powell
Soohyen Park       Nicole Paul-       Angela Perstein    Dick Pierce        Mark Powers
                    Almand
----------------------------------------------------------------------------------------------------------------
                                                        Q
----------------------------------------------------------------------------------------------------------------
Rita Quinn         Maclovia Quintana  Rafael Quintero
----------------------------------------------------------------------------------------------------------------
                                                        R
----------------------------------------------------------------------------------------------------------------
J. R.              Marsha Reeves      Andrew Ricker      Mary Rose Roberts  Ellen Rose         Renee Ruder
Brian Rabniovitz   Joy Reich          Alison Riddle      Nancy Roberts-     Janice Rose        Kathi Ruel
                                                          Moneir
Tammy Radan        Donna Reid         Jane Ried          Jim Robertson      Kathryn Rose       Osiel Ruiz
Irene Radke        Jane Reifer        Katie Riedler      Susan Robinson     Fred Rosenberg     Seema Rupani
Gretchen Raichle   Misty Reilly       Susie Ries         Sharon Robinson-   Elizabeth Rosnel   Charles Rusnak
                                                          Rosenberg
Eden Rain          Steve Reis         Rick Rigby         Peter Roche        Eric Ross          Robert Rusnak
Elizabeth          Bonita Reishus     Richard Riggs      Soretta Rodack     Kat Ross           Kenneth Russell
 Raintree
Nadine Ralph       Kait Reisner       Bobby Righi        Terrell Rodefer    Lilli Ross         Morgan Russell
Rudy Ramp          Michelle Reott     Robin Rigoli       Elisa Rodero       Lynn Ross          Nancy Russell
Lois Ramsey        Ronald Reuse       Kathy Riley        Patricia Rodgers   Maya Ross          Sharon Russick
Sandra Rando       Joy Rex            Thomasin Ringler   Joseph Rodriguez   Maria Rosselli     Kathleen Rutecki
Bob Rankin         Edgar Reyes        Louis Rink         C.G. Roehrs        Jerome Roth        Rebecca Rutt
Brian Ranum        R. Reyes           Tina Risley        Megan Roemer       David Rothenberg   Ben Ruwe
Bharat Ratra       Charle Ricci       Kim Rismondo       Robert Rogers      Jane Elizabeth     Robert Ryan
                                                                             Rothman
William Rau        Jima Rice          Robert Rismondo    Marian Roh         Suellen Rowlison   E. Aldona Rygelis
George Ray         Lincoln Rice       Aimee Rist         Brian Rohr         Carol Royce        Melisa Rys
Richard Ray        Stephanie          Kristin Ritzau     Matt Rollins       Maria Rua
                    Richards
Regan Rea          Lewis Richardson   Susan Rivo         Betty Roman        Scott Rubel
Shelley Reeder-    Lonna Richmond     Christine Roane    Sharon Romano      William Ruch, Jr.
 Lueth
Dr. Kathy Reese    Patricia Richter   Robert Robbins     Denise Romesburg   Linda Ruddle
----------------------------------------------------------------------------------------------------------------
                                                        S
----------------------------------------------------------------------------------------------------------------
Shanta Sacharoff   John Schinnerer    Kinsey Service     Diane Simpson      Janet Sorell       Kharla Stepnitz
Michelle Sadeh     E. Muriel          Scott Sesher       Lauren Singer      Linda Sotis        Bruce Sterling
                    Schlecht
Ron Saeger         Christine          Tyler Severy       Naomi Singer       Krissa Sotomayor   Patricia Stewart
                    Schlicht
Elizabeth Saenger  Patty Schlueter    Linda Sewell       Jon Singleton      Sue South          Robin Stewart
William Saenz      Suzanne Schluter   Rachel Shabi       Ron Sitts          Kathryn Spahr      Sarah Stewart
R. Sage            Bradley Schmidt    Dina Shadwell      Sheilah Skelskey   Margaret Spak      Vaunie Stewart
Geoffrey Saign     Michael B.         Georgia Shankel    Damon Skelton      Jon Spar           Dianne Stiers
                    Schmidt
Paul Sakamoto      Suzanne Schmidt    Laura Shapiro      Sue Skidmore       Gregg Sparkman     Sarah Stimely
Joe Salazar        Cathie Schneider   Inna Shapkina      Richard Slawson    Alicia Sparks      Kian Stipp
Max Salt           Gerald Schneider   George Shardy      Amy Sletteland     Jordan Sparks      Laurie Stoff
Barry Saltzman     Karen Schneider    David Shatkin      Heidi Sloan        Alex Sparrow       Emory Stoker
Michael Salzman    Douglas Schneller  Tatyana Shatova    Joanna Slodownik   Lawrence Spatz     John Stokes
Ellen Sanders      Bryce Schober      Emily Sheafe       Theresa Slusher    Jesse Spears       Debra Stoleroff
Terri Sanders      Adam Schofield     Meredith Sheane    Steve Smail        Arlene Spencer     Erica Stonestreet
Jean Sandstrom     Jeannette          Gwen Shear         Linda Smathers     John Spencer       Cheryl Storm
                    Schreiber
Karen Sankey       Robin Schreier     Sheila Sheehan     M. Smerken, Ph.D.  Jane Sperr         Lauren Storm
Dorota Sapinski    Elizabeth          Michelle           Amy Smith          Amalia Spescha     Elizabeth Julia
                    Schroeder          Shellhammer                                              Stoumen
Mary Sapp          Julie Schroeder    Katherine Shelton  Edward Smith       Michael Spicer     Helen Strader
Christine          Cassandra Schuler  Mary Sherman       Ellen Smith        Warren Spicer      Erich Stratmann
 Sartwell
Jill Sasser-       Eva Schultz        Paul Sherman       Glenn Smith        Carolyn Spier      Garry Strawser
 Sullivan
Karen Sattler      Michael Schultz    Vicki Sherman      Grant Smith        Robert Spies       Debby Stringham
Robert Satz        Todd & Karishma    Lorraine Sherwood  James Smith        Heather            Daniel Strong
                    Schumacher                                               Sponseller
Ellen Saunders     Frances Schwartz   Amit Shoham        Janice Smith       Martha Springer    Miriam Strysik
James Saunders     Robert Schwentker  Jamil Shoot        Judith Smith       Andrea             Melissa Stuckey
                                                                             Springmeier
Carol Sauzek       William Scott      Victoria A. Short  Kellie Smith       John St. Claire    Melinda Suelflow
Carissa Savage     Katy Scrogin       Rachel Shprintzen  Margaret Smith     Suzanne Stack      Micah Sulewski
Salvatore          Lauren Scurry      Richard Shulman    Marilyn Smith      Lisa Stahley       Maureen Sullivan
 Savastano
Susan Savia        Elizabeth Seaman   Susan Shulman      Natalie Smith      Jessica Stamp      Stacey Sullivan
Shae Savoy         Knute Sears        Cory Shumaker      Shane Smith        David Stampe       Rebecca Summer
Jesse Sawyer       Shelley Sechrist   Larry Siegel       Stewart Smith      Elizabeth          Amanda Summers
                                                                             Standard
Carol Sawyers      Nina Seco          Mike Siegel        Thomas Smith       Robert Stang       Bruce Surface
Geri Saxe          Marlene Sedillos   Keene Silfer       Lora Smith         Cedar Stanistreet  Katya Surrence
                                                          McBride
Meera Saxena       Tracia Sedivy      Dan Silver         Robert Smyth       Kara Stans         Miriam Swaffer
Daniela            Jonathan Seeley    David Silverstein  Marie Snavely      Sandra Stanton     Kristen Swanson
 Scaramuzza
Mary Schaad        Paul Seer          Bill Simerly       Juleigh Snell      Douglas Stark      Steven
                                                                                                Swartzendruber
James Schall       Joshua Seff        Adrienne Simmons   Helen Snively      Shelley Stark      Nicole Sween
N. Schar           Daniel Seirawan    Carole Simmons     Virginia           Chris Stay         Peter Sweeny
                                                          Snodgrass Rangel
J. Scheerbaum      Cynthia Selene     Dee Simmons        Peter Snow         Peggy Steart       Ed Sweet
Bill Scheffer      Lucy Sells         Janie Simmons      Katherine & Bruce  Patrick Steggall   Justin Sweet
                                                          Sogolow
Margaret Schehl    Sarah Selph        Tim Simmons        Jonathan Sola      Sarah Steinberg    Riva Sweetrocket
Kristin L.         Anne Senuta        Ashley Simon       Renee Solano       George Steinitz
 Schibsted
Emily Schick       Diane Sepsis       Carol Simon        Devorah Soodak     Marjory
                                                                             Steinweiss
Richard Schieffer  Cindy Sergeant     Mary Simon         Michael Sopkiw     Rachael Stephens
Brian Schiffer     Molly Servais      Murray Simon       David Soracco      Misty Stephenson
----------------------------------------------------------------------------------------------------------------
                                                        T
----------------------------------------------------------------------------------------------------------------
Mark Takaro        Dr. F. Taylor      Carolyn B. Thayer  Susan Thomson      Rachel Toomim      Tracy S. Troth
Erika Takeo        Havely Taylor      Julie Thayer       Jerllyn Thurber    Burton Toone       Nick Tsihlis
Ruth Ann Takes,    Kathy Taylor       Jeff Thering       Kirby Thwing       Josephine Torrez   Christina
 PBVM                                                                                           Tuccillo
Nathaniel Talbot   Troy Teets         Bonnie Thistle     Janet Tice         Harriet Totten     Ann Tucker
Theo Tang          Anna Teigen        Cathryn Thomas     Mary Tierney       Ryan Toups         Tevya Tufford
                                                                                                Fetter
Yvette Tannenbaum  Michele Temple     David Thomas       Penelope Tingle    Steven Trafton     Pat Turney
Jane Tanner        Martha Tenney      Jennifer Thomas    Valerie Tisdel     Thomas Treat       Michele Tusinac
Don Tarbutton      Sharon Tepe        Ralph Thomas       Leah Tobani        Gigi Trebatoski    Bernadette
                                                                                                Tuthill
Joan Taslitz       Jean Terranova     Paul Thomason      Claire Todd        Curt Tresenriter   Forrest Twombly
Anne Taub          Nancy Terrill      Cindy Thompson     Katherine Todd     Jennifer Trevino   Connie Tyler
Sandra Tauferner   Patricia Teter     George Thompson    Jude Todd, Ph.D.   Scott Trieshmann   Melissa Tyler
Brian Taussig-Lux  Susan Tharp        Martha Thompson    Pela Tomasello     Sandra Triponey    Lynn Tytla
Angela Taylor      Leslie Thatcher    Sarah Thompson     Adam Tomei         Adrienne Tripp
Debra Taylor       Randy Thatcher     Scott Thompson     Barbara Toomey     Charles Tripp
----------------------------------------------------------------------------------------------------------------
                                                        U
----------------------------------------------------------------------------------------------------------------
Erik Ulman         Gene Ulmer         Jenna Umbriac      Elizabeth Ungar    Marilyn Ungaro     Eliana Uretsky
Sam Urmy           Zofia Uznanska
----------------------------------------------------------------------------------------------------------------
                                                        V
----------------------------------------------------------------------------------------------------------------
Lynn Vaag          Sara Van Asten     Kathleen Vander    Jessica Verge      Val Voci           Emily von W.
                                       Heijden                                                  Gilbert
Karen Vahtra       Matthew Van Auken  Renee Vanderhoff   David Via          Carla Vogel-Stone  Robin Vosburg
Carlina Valenti    Dona van Bloemen   Aliza Vanderlip    Laura Vicari       Robin Vogler       Erika Voss
Leyva Valerie      Emma Van de Water  Rhonda             Reka Viczian       Vera Vogt          Paul Voytas
                                       Vanwingerden
Autumn Valley      Laurel van den     Stamatios Varias   Jane Vieira        Terry Vollmer      Michelle Vruwink
                    Cline
Cheryl Vallone     Joshua Van         Michael Vaughan    Helene Vion        Whitney Voltz
 Rigby              Deventer
Curt Valmy         Sara Van Fleet     Anthony Vecchio    Greg Virgo         Timothy Vollmer
Vivian S. Valtri   Cathie Van Wert    Ray Velazquez      Nedda Viscovich    Karl von Kries
 Burgess
----------------------------------------------------------------------------------------------------------------
                                                        W
----------------------------------------------------------------------------------------------------------------
K. W.              Marlo K. Wamsganz  Judith Weil        Carey Wheaton      Terry J. Williams  Andrew Woitkoski
Emily Wachowiak    Bethany Ward       Naomi Weinstein    Jean Wheelock      Lisa Williamson    Michele Wojcicki
Sharon Wachsler    Paula Ward         Jennifer M.        Cynthia White      Michael Wills      Kathleen Wolchick
                                       Weishaar
Art Wagner         Tara Ward          Faye Weisler       Gail White         Anna Wilson        A. Wolf
Briana Wagner      Jennifer Ward      Clifford Weiss     Greg White         Ila Wilson         Sasha Wolf
                    McDonald
Carol Wagner       Catherine Warner   E.B. Weiss         Laura White        Janet Wilson       Wesley Wolf
Katje Wagner       Maria Warnick      George Weissmann   Mary White         Marsha Wilson      Kathleen Wolfe
Vickie Wagner      Nan Warshaw        Arnold Welber      Catherine          Maryrose Wilson    Kristin Womack
                                                          Whiteside
Garrett Waiss      Anje' Waters       Christopher Welch  Rhoda Whitney      Shannon Wilson     Arthur Wood
Marie Wakefield    Randy Waters       Susan Welch        Christine          Kimberly Winder    Barbara Wood
                                                          Wichmann
Rebecca Walding    Billie Watkins     Greeley Wells      Margaret Wieber    Maggie Wineburgh-  Brian Wood
                                                                             Freed
Beverly Walker     Debbie Watkins     Lark Wells         Joseph Wiesner     Jennifer Wingard   Edward Wood
Carolyn Walker     Fan Watkinson      Duane Welsch       Margarita Wiewall  Julie Winkel       Rachel Wood
Shannon Wallace    Danny Watson       Sarah Welsh        Margaret Wilbur    Richard Winkler    Theresa Wood
Rhoda Waller       Laura Watson       Susan Welsh        John Wiles III     Debra Winter       Tara Woodard
Brad Walrod        Mandy Watson       Constance Welzel   Jonathan Wilk      Maurna Winterer    Charlene Woodcock
Donald Walsh       Michael Watson     Emma Wendt         Marian Wilkerson   David Wish         Karen Woods
Sean Walsh         Sylvia Watterson   Barbara Werner     Matthew Wilkes     Elizabeth Wisler   Rory Woods
Tammy Walter       Elizabeth Watts    Marita Wesely      Jonathon Williams  Judih Glassburg    Rachael Wooten
                                       Clough                                Wisnia
Garrett Walters    Mark Wax           Lee West           Linda Williams     Julie Wissinger    Tracy Wreden
Jacqueline         Julene Weaver      Susan West         Lisa Williams      Martin Witchger    Barbara B. Wyle
 Walters
Sonya Walters      Deborah Webster    Amy Westcott       Pamela Williams    Trude Witham       Devik Wyman
Zachary Waltz      Shoshana Wechsler  Donna              Sharon Williams    Bob Witmer
                                       Westmoreland
----------------------------------------------------------------------------------------------------------------
                                                        X
----------------------------------------------------------------------------------------------------------------
Deborah Xiques
----------------------------------------------------------------------------------------------------------------
                                                        Y
----------------------------------------------------------------------------------------------------------------
Hilary Yarmus      Dennis Yee         Holly Yee          Rhonda Yellin-     William Yenke,     Susan Yewell
                                                          Waldron            Ph.D.
Clay Young         John Young         Mary Ystueta       Amy Yu Gray
----------------------------------------------------------------------------------------------------------------
                                                        Z
----------------------------------------------------------------------------------------------------------------
Norman Zachlod     Dr. Stanley J.     Cynthia Zeito      Cynthia Ziegler    Rebecca Zoellner   Eric Zuesse
                    Zawada
Douglas and        Marci Zayon        L. Zeveloff        Rachel Zierzow     Abigail Zoline     Jennifer Zwarg
 Dianne Zande
Linda Jo Zapar     Gisela             David Zevin        Maureen Zika       Theodore Zook      Michael Zwiebach
                    Zechmeister
Alfonso Zaragosa   Eron Zehavi        Cathy Zheutlin     Fred Zimmerman     Marguery Lee
                                                                             Zucker
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                    Land Trust Alliance Form Letter
  <bullet> Please support the Senate funding levels for Agricultural 
        Land Easements, which advance the proven model of leveraging 
        Federal funds through local partners to secure perpetual 
        conservation easements that help keep farm and ranch lands in 
        production, while conserving important natural resources.

  <bullet> Restore the existing FRPP match formula to encourage bargain 
        sales and allow waivers of the match requirements for strategic 
        projects.

  <bullet> Restore language clarifying that the Federal Government is 
        not acquiring a real property interest and has only a 
        ``contingent right of enforcement.''

 
 
 
Pat Deering              John French              Ann Hutchinson
Marlena Lange            James L. Leet            Michael Shand
Mark Sollitto            Becky Stock              Chris Wood
 

                                 ______
                                 
         National Sustainable Agriculture Coalition Form Letter
  <bullet> America needs a farm bill that creates jobs and spurs 
        economic growth--support programs like the Value-Added Producer 
        Grants Program by guaranteeing $30 million of mandatory funding 
        per year. VAPG provides seed money to help farmers innovate in 
        agriculture and create jobs while securing a sustainable path 
        to market-based farm profitability.

  <bullet> America needs a farm bill that makes healthy food widely 
        available to all Americans--including schoolchildren! We must 
        provide flexibility for states to use existing food procurement 
        programs to purchase fresh, healthy food from local farmers and 
        ranchers.

  <bullet> America needs a farm bill that protects our natural 
        resources--protect the Conservation Stewardship Program from 
        unfair funding cuts, and improve it by ranking applications 
        solely on their conservation benefits. Farmers count on CSP and 
        other conservation programs to conserve soil for future 
        generations, keep water and air clean, and create habitat for 
        wildlife--all while farming profitably.

  <bullet> America needs a farm bill that invests in the next 
        generation of farmers and ranchers--guarantee $25 million per 
        year in mandatory funding for the Beginning Farmer and Rancher 
        Development Program. We need a national strategy and commitment 
        to support beginning farmer and ranchers entering agriculture. 
        With an aging farm population, now is the time to invest in the 
        future of American agriculture by nurturing new agriculture 
        start-ups.

  <bullet> America needs a farm bill that drives innovation for 
        tomorrow's farmers and food entrepreneurs--fund the Organic 
        Agriculture Research and Extension Initiative at $30 million 
        per year in mandatory funding. Investment in agricultural 
        research is vital to continued productivity and innovation in 
        growing and diverse sectors of American agriculture, such as 
        organic agriculture.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                    A
------------------------------------------------------------------------
John E. Akin       Kathleen           John K. Akin      Matt Anton
                    Alexander
Robin Ayars
------------------------------------------------------------------------
                                    B
------------------------------------------------------------------------
Kim Bacon          Anne Behroozi      Patrick Bosold    Sandy Brown
Melvin Bautista    Frank Belcastro    Charlene          Bonnie
                                       Boydston          Breckenridge
Gerald Bednar      J. Beverly
------------------------------------------------------------------------
                                    C
------------------------------------------------------------------------
Regina             Edith Coleman      Tim Collingwood   Phyllis Crawford
 Cappelletti
Andrew Cardno      Geri Collecchia    Susan
                                       Constantine
------------------------------------------------------------------------
                                  D & E
------------------------------------------------------------------------
Jim Dailey         K. Danowski        Beth Darby        Christopher Dent
Eric Edwards       Bibi Elsamahy
------------------------------------------------------------------------
                                    F
------------------------------------------------------------------------
Angela Fazzari     Elisabeth          Jennifer Fike     Anna Louise E.
                    Fiekowsky                            Fontaine
------------------------------------------------------------------------
                                    G
------------------------------------------------------------------------
Dave Garlock       Brian Gibbons      Frances Goff      Tina Gruen
Cinda Gaynor       Valerie Gilbert    Jerry Goodrich
------------------------------------------------------------------------
                                    H
------------------------------------------------------------------------
Dave Hanson        Ray Hawkins        Deanna Homer      Karen L. Hudson
Stephen Hasson     Elizabeth Hickman  Mike and Judy     Krissy Hughes
                                       Howden
Catherine Haug     Thomas Higgins     Dawn Hoyt
------------------------------------------------------------------------
                                    J
------------------------------------------------------------------------
James James        Barbara Johnson
------------------------------------------------------------------------
                                    K
------------------------------------------------------------------------
A. K.              Timothy Kirsch     Marc Klosner      Cosima Krueger-
                                                         Cunningham
Loni Kemp          Carl Klein         Dawn Kosec        Holly Kukkonen
Steven Kennedy     Fred Klemmer       Jennifer
                                       Krouchick
------------------------------------------------------------------------
                                    L
------------------------------------------------------------------------
Gwen Lambert       Kathryn Lemoine    Helena Liber      Terry Luke
Val Leitner        Leslie Leslie      John Lopez        Mary Lyda
------------------------------------------------------------------------
                                    M
------------------------------------------------------------------------
Jim Maguire        Tom McLaughlin     Taunia Miles      Randy Murbach
Jeremy Manela      Ann McMullen       Prof. Joan P.     Blayney Myers
                                       Mencher
Stuart McDonald
------------------------------------------------------------------------
                                    N
------------------------------------------------------------------------
Steve Nance        Jean Naples        Ryan Nestler      Louisa Newcomb
Neal Nollette      Sydney Null
------------------------------------------------------------------------
                                    P
------------------------------------------------------------------------
Jill Peiffer       Amy Perrin         Martha Poliquin   Adrian Poloni
Rev. Melody C.     Laura Prestridge
 Porter
------------------------------------------------------------------------
                                    R
------------------------------------------------------------------------
Irene Radke        Barbara Ross
------------------------------------------------------------------------
                                    S
------------------------------------------------------------------------
Mark Salamon       Liya Schwartzman   Daniel Shively    Michael Sodos
Marni Salmon       P. Scoville        Daedra Smith      Evan Studenmund
Mary Schor         Melissa Sharp      Judith Smith      Matthew Swyers
------------------------------------------------------------------------
                                    T
------------------------------------------------------------------------
William Tamblyn    Ryan Toups         Alicja Trzopek
------------------------------------------------------------------------
                                    W
------------------------------------------------------------------------
Ariel Wallick      Susan Watts        Nathan            Elizabeth
                                       Wesselowski       Williams
Rebecca Watkins    Susan Weems        Shawn Weymouth    Terrie Williams
------------------------------------------------------------------------
                                  Y & Z
------------------------------------------------------------------------
April Yuds         Rudy Zeller        Barry Zuckerman
------------------------------------------------------------------------

                                 ______
                                 
             National Young Farmers' Coalition Form Letter
    Dear Chairman Lucas,

    Thank you for the opportunity to submit testimony to the House 
Committee on Agriculture on the next farm bill. My district 
representative is being copied on this testimony. I am a [fill in the 
blank] and I'd like to share my support for programs that help the next 
generation of growers build strong farm businesses. As it's estimated 
that 125,000 farmers will retire in the next 5 years, it's absolutely 
critical that farm bill programs help citizens get started in this 
challenging field. I ask that the Committee endorse all of the 
provisions of the Beginning Farmer and Rancher Opportunity Act (H.R. 
3236), including:

  <bullet> Mandatory funding for Individual Development Accounts at $5 
        million per year. This program helps new farmers raise capital 
        to start farm businesses and is tested and proven by 
        organizations like Practical Farmers of Iowa and the California 
        Farmlink.

  <bullet> Mandatory funding for the Beginning Farmer and Rancher 
        Development Program at $25 million a year. This program funds 
        essential education for new farmers around the country.

  <bullet> Authorize a new microloan program, to enable young and 
        beginning farmers to better access FSA loan programs.

  <bullet> Revise FSA rules to make loan programs more accessible to 
        more young and beginning farmers.

  <bullet> Reaffirm the existing cost share differential for BFRs 
        within EQIP. Also, reaffirm the advance payment option allowing 
        beginning and socially disadvantaged producers to receive an 
        advance payment for the project's costs for purchasing 
        materials or contracting services, but increase the limit on 
        the advance payment from 30 percent to 50 percent of costs.

  <bullet> Amend the Farm and Ranch Land Protection Program (FRPP) to 
        make farm viability part of the purpose of the program and to 
        give discretionary authority to the eligible entities that 
        implement the program to give priority to easements with an 
        option to purchase at the agricultural use value, deals that 
        transfer the land to beginning and farmers and ranchers, 
        applicants with farm succession plans, and other similar 
        mechanisms to maintain the affordability of protected land.

    These and other provisions within the Beginning Farmer and Rancher 
Opportunity Act will help new growers succeed and I urge you to include 
them in the next farm bill.
            Sincerely,

 
 
 
Ann Adams                Doug Goosey              Bryn Roshong
Kristen Balschunat       Krista H.                Utah Roshong
Dara Barr                Larry Haberman           Jeremy Ryan
Mark Begley              Amanda Hanley Dalzell    Abby Sadauckas
Mark Begley              Wes Hannah               Abilgail Salzer
Jenn Bell                Wes Hannah               Alan Seid
Steven Beltram           Catherine Harrison       Micah Sewell
Steven Beltram           Michaela Hayes           Kirk Shaunfield
Kevin Bodle              Mary Jawlik              Lindsey Shute
Chandler Briggs          Sara Jobin               Chris Sieverts
William C. Briggs, Jr.   Kathlene Jordan          Carol Sullivan
Paul Buseck              Kim Kirkbride            Audrey Swanenberg
Thea Carlson             Emma Kirwan              Cassie Tharinger
Patricia Carson          Franchesca Lane          Diane Tolley
Edward Cheetham          Chris Larsen             Connor Trott
Kyle Chidester           Alex Liebman             Tune Farm
Nicholette Codding       Daniel Livingston        William Whitaker
Mark Dattilio            Rick Machado             Leah White
Roy Dollar               Nellie McAdams           Dottie Wolfe
Robert DuBois            Daniel Moyer             Zoe Wroten
Laurie Duncan            Amy Pickering            David Zabkar
Chris Erickson           Emily Place              Sean Zigmund
Rachel Firak             Tim Redmond
Marybeth Gentry          Jennifer Reilly
James Gibson             Laurie Rolfe
 

                                 ______
                                 
            Organic Farming Research Foundation Form Letter
    As a strong supporter of organic farming, I ask that you . . .

  <bullet> Fully fund the Organic Research and Extension Initiative 
        (OREI) at the 2008 level.

  <bullet> Endorse all provisions of the Local Foods, Farms and Jobs 
        Act (H.R. 3286).

  <bullet> Support all provisions of the Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236).

  <bullet> Maintain EQIP Organic Initiative and do NOT cut the 
        Conservation Stewardship Program.

 
 
 
Becky Bassham            Ellen Kanner             Brian O'Connor
Jeffery Beacham          Randy Kiel               Catherine Peters
John Bobbe               Sibella Kraus            Paul Roge
Paul Bucciaglia          Gwen Lambert             Marjorie Roswell
Sean Clark               Patrick Lillard          Susan Shields
Elizabeth Coontz         Marc Lionetti            Patricia A. Simon
Edi Dwiyono              Kellene Mart             Dr. Rik Smith
Andrew Hammerstein       Lynne Martinez           Miriam Steinberg
Pam Hartwell-Herrero     Stacy Mates              Lee Valkenaar
Krissy Hughes            Victoria McGarrity       Ford Waterstrat
T.J. Johnson             Aline Mukai              Donald Worley
 

                                 ______
                                 
 Peace and Justice Commission of the Catholic Diocese of Salt Lake City
    The Peace and Justice Commission of the Catholic Diocese of Salt 
Lake City urges you to:

    (1) protect funding and structure for SNAP; efforts to block grant 
        this important nutrition program will weaken our nation's 
        response to hunger and increase food insecurity in at risk 
        households, particularly those with young children, the elderly 
        and the disabled;

    (2) create incentives for small farmers who grow fruits, vegetables 
        and other specialty crops; and

    (3) adequately fund The Emergency Food Assistance Program (TEFAP) 
        and make it more responsive to need; this program provides food 
        banks and emergency food pantries with commodities and provides 
        low-income households food.

 
 
 
Mamta Chaudhari    Alyssa Geisler     Jean Hill         Joanna Straughn
 

                                 ______
                                 
                       Slow Food USA Form Letter
    As the committee considers the 2012 Food and Farm Bill, I urge you 
to:

  <bullet> Support our fight against hunger by maintaining and 
        strengthening critical nutrition programs in this time of 
        unprecedented need. We must not solve our budget problems on 
        the backs of those experiencing food insecurity, including our 
        most vulnerable--our children, the elderly, and the disabled;

  <bullet> Provide an even ``plowing'' field by fully funding programs 
        that support beginning and socially disadvantaged farmers and 
        ranchers, organic farming, regional farm and food economies, 
        and rural development. We need more farmers and ranchers, more 
        sustainable food production, and more economic opportunity in 
        our food system;

  <bullet> Support family farmers that really need help, not the 
        biggest farms that don't: End subsidies (aka direct payments 
        and countercyclical commodity programs), and replace them with 
        loophole-free agriculture risk coverage. Additionally, 
        implement a cap on crop insurance premium subsidies;

  <bullet> Ensure that limited conservation funding maximizes lasting 
        environmental benefits: Limit funds to Concentrated Animal 
        Feeding Operations (CAFOs) for animal waste management 
        infrastructure by eliminating the Environmental Quality 
        Incentives Program (EQIP) Livestock Set-aside and protect the 
        Conservation Stewardship Program (CSP) from disproportionate 
        cuts, and improve it by ranking applications solely on their 
        conservation benefits.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
                                                        A
----------------------------------------------------------------------------------------------------------------
Mary Able          Lawrence Adymy     Jaimie Alley       Pamela Angulo      Vanessa Arcara     Jamie Atkinson
Amanda Acevedo     Afifa Afifi        Linda Alley        Pat Annee          Tim Archer         Meghan Atwood
Laura Ackerman     Janice Ahn         Gene Ammarell      Koh Annette        Deniz Arslan       Christina Aulick
Miriam Ackerman    Gina Alianiello    Sean Anderson      Frederique Apffel- Debra Asher
                                                          Marglin
Hillary AcMoody    Paul Allen         Tove Andvik        Jesse Appelman     J. Donna Asmussen
----------------------------------------------------------------------------------------------------------------
                                                        B
----------------------------------------------------------------------------------------------------------------
Hannah Babich      Aaron Beam         Kristin Berkery    Stacey Blaschke    Steffen Brandt     Wanda Bruce
Jason Bade         Jaynie Beard       Nicole Berkheimer  Jessica Blemker-   Joshua Brau        Vincent Bruno
                                                          Ferree
Janet Bailey       Joe Bearden        Karen Bernard      Sharron Blezard    Michael Braude     Jane Buch
Luke Bailey        Karen Bearden      Suzel Bertrand     Sharon             Jeff Brauer        Evelyn Buchanan
                                                          Blickenstaff
Jane Bainter       Patricia Becker    Janet Beth         Christina          Laura Braun        Melissa Bukovinac
                                                          Blomberg
Maryellen Baker    Jeremy Beckman     Judith Bevilacqua  Carol Blum         Ann Braunstein     Rupert Burg
Suzanne Baker      Judy Beckmen       John Christopher   Scott Bogart       Heather            Robin Burgess
                                       Bezsylko                              Breidenbach
Mia Baki           Neal Beets         Anjana Bhalla      Jana Bogs          Amy Brenner        Linda Burke
Krystal Baldasaro  Shanah Bell        Erin Biehl         Jamie Bollman      Kellen Brenner     Terry Burkhardt
Nancy Barba        Mignon Belongie    Carolyn Bigger     Yvette Bone        Jim Brett          Naomi Bustamante
Sherri Barker      Catherine Belt-    Susan Bilda        Donna Bonifield    Nicola Breuer      Julianna Butch
                    Vahle
Meghan Barnard     Sarah Benesch      Rhonda Biles       Tracey Booth       Vanessa Brocato    Shelley Butler
Julie Barr         Larry Benjamin     Kathleen Billings  Nadia Borowski     James Brooks       Jeb Byers
                                                          Scott
Joyce Bartlomain   Susan Bennett      Emily Birden       Cynthia Bower      Sarah Browder
Patricia           Tiffany Bensen     Melissa Bires      Sarah Boysen       Jocelyn Brown
 Batchelder
Vicki Bates        Carol Benton       Carrie Blackburn   Katharine Bradley  Linda Brown
Geri Baumblatt     Frieda Benun       Mary Blackwell     Veronica Bradshaw  Diana Brownstone
Alec Baxt          Christopher Beres  Louise Blaschke    Shelly             Jonathan Bruce
                                                          Brandenburger
----------------------------------------------------------------------------------------------------------------
                                                        C
----------------------------------------------------------------------------------------------------------------
M. C.              Jady Carmichael    Alice Chang        Margaret Clarke    Meghan Conboy      Alison Croney
Laurie Cain        Laura Carnecchia   Margaret Chanler   Francine Cleer     Alison Conforti    Eliza Cross
Lily Calderwood    Julie Carroll      Katherine Chapman  Jean Clements      Kathleen           Jennifer
                                                                             Conzelmann         Cuhaciyan
Matt Callo         Amy Carstensen     Karry Charest      Ryan Coakley       Wendy Copp         Karin Cummins
Holly Camerota     Melanie Casey      K.J. Chase         Fritzi Cohen       Pasqualina         Joan H.
                                                                             Coppola            Cunningham
Kathryn Campbell-  Joan Cassell       Alejandro Chavez   Ida Cohen          Jackie Cornell     Nathalie Curabba
 Kibler
Derinda Cantrell   Lauren Castellini  Eric Cheadle       Zoe Cohen          Shawn Cortay       Paul Curcio
Ericka Carlson     Dana Cavallaro     Debbie Cheesman    Jeff Coleman       Wayne Corteville   Julia Curry
                    Dignam
Laura Carlson      Eli Cavich         Sharlene Chew      Timothy Coleman    Mariana Cotlear    Tamara Cusick
Martha Carlson     Sanchez Celeste    Ann Chiaverini     Larissa Collins    Stacy Couch        Melissa Cyr
Virginia Carlsten  Clinton            Kris Christie      Louise Collins     Edith Couchman     Alex Czurylo
                    Chamberlain
Megan Carlucci     John Richard       Gillan Cindy       Robert Colman      Flora Crapko
                    Chamberlain
Heather Carman     Peg Champion       Jonathon Clark     Pat Coluzzi        Elizabeth
                                                                             Creighton
----------------------------------------------------------------------------------------------------------------
                                                        D
----------------------------------------------------------------------------------------------------------------
Steve Daigneault   Martha Davis       Sarah DeLucia      Carolyn Dickey     Lori Dodson        Christopher Duane
                    Kipcak
Bruce Daniel       Emi Day            Jessica DeMarco    Anna Diffenderfer  Mary Lynne Doleys  Jeffrey Dubinsky
Donna Daniels      Rebecka Daye       Kathi Demarest     David              Daisy Dominguez    Tim Duffin
                                                          Diffenderfer
Alessandro         Christi De Larco   Jillian DePete-    Rachel DiFranco    Ydun Donahoe       Robin Dunitz
 d'Ansembourg                          McMahon
Donna Davis        Kirstin De Mello   Amy DeSantis       Brandt Ditgen      Jim Donovan        Anne Dunning
Jaimee Davis       Selena Deak        David DeVaughn     Fernando Divina    Liat Douglas       Jennifer Durban
Laurie Davis       Elsa Dean          Terri Dewald       Nina Dmetruk       J.D. Doyle
Rebecca Allen      Olivia Delancie    Connie Dewdney     Christina Dobbs    Molly Drazin
 Davis
Seth Davis         Chris DeLucia      Rita Di Tondo      Tina Dobsevage     Catherine
                                                                             Drzewiecki
----------------------------------------------------------------------------------------------------------------
                                                        E
----------------------------------------------------------------------------------------------------------------
Matthew Earle      Samuel Effron      Barbara Elfman     Ann Ely            Lori Enright       Glenn Esher
Sylvia Eckardt     Stephen            Jodi Elliott       Erin Ely           William Erb        Gregory Esteve
                    Eichelberger
Karen Edwards      Susan Ekk          Rebeca Elliott     Catherine Enfield  Cheryl Erenberg
----------------------------------------------------------------------------------------------------------------
                                                        F
----------------------------------------------------------------------------------------------------------------
Jamie Fahrner      Sarah Feierabend   Joy Fields         Alexandra          Susan Ford         Gretchen
                                                          Flemming                              Frederick
John Farais        Kimberly Feilteau  Cathy Finlay       Luis Flores        Blake Forrest      Thomas Freedman
Emily Farr         Tracy Feldman      Andrea Finley      Joshua Flowers     Carolyn Forsyth    Brock Freeman
Valerie Farr       Andrew Fenton      Andrew Fippinger   Sonia Flowers      Aimee Foster       Claire Freierman
Chelsea Farrell    Barbara Ferguson   Matthew Fisher     Christine Flynn    Kathleen Fowler    Katie French
Monica Favela      Danielle Ferguson  Rachel Fiske-      Jill Flynn         Anna Fox           Maurice Pierre
                                       Cipriani                                                 Friedrichs
Shervin Fazel      David Fetter       Mary Fleming       Noelle Fogg        Ashli Franck       Margy Furst
John Federico      Bryan Field        Natalie Fleming    Dale Ford          Jacquie Fraser
----------------------------------------------------------------------------------------------------------------
                                                        G
----------------------------------------------------------------------------------------------------------------
Linda Gagne        Robert Gaston      Karen Gerbatsch    Eric Godin         Alex Grace         Sherrye Grotte
Susan Gallaher     Christopher        Kristin Gervasio   Christine Goepp    Heather Graham     Hannah Grubba
                    Gauthier
Matthew Gallelli   Chris Geiger       Sandy Giallanza    Donna Goff         Laura Graham       Merry Guben
Joshua Galliano    Matthew Genaze     Franca Gilbert     Pascal Golay       Chris Gramly       Thad Guidry
Anne Galvin        Jacqueline Genge   Paul Gillette      Mia Goldman        Kristin Green      Angele T. Gulley
Florence Gans      Chris George       Lindsay Gilmour    Louise Golub       Catherine          Catharine
                                                                             Gregorio           Gunderson
Elizabeth Garber   Teal George        Marla Gisi         Anne Good          Bonnie Gregory     Laura Guy
Gina Garcia        Romola Georgia     Jessica            Melinda Goossen    Dana Greyson
                                       Glendinning
Marisol Garraton   Chester Georgi-    James Glynn        Pete Gosar         Melissa Griffin
                    Densmore
Anna Garzon        Daniele Gerard     Dawn Goddard       Hope Grable        Jacqueline Grote
----------------------------------------------------------------------------------------------------------------
                                                        H
----------------------------------------------------------------------------------------------------------------
Linda Haas         Sasha Hammad       Shannon Hayes      Maggie Herskovits  John Holden        Caitlin Hudson
Sarah Hafer        Stacey Hannaford   Angela Haynie      Elizabeth Hickman  Halsey Holt        Patrina Huff
Alan Haggard       Lisa Hannich       Alicia Hecht       Jennifer Hill      Perdita Holtz      Laurel Hummel
John Haggerty      Josh Hansen        Jill Hector        Lindsay Hill       Michael Holub      Anny Hunt
Carla Hall         Karen Hansen       Patricia Heinze    Ann Hines          Jim Homer          Jean Hunt
Lori Hall          Shedryl Hansen     Kathryn Helms      Jennifer Hines     Kate Hopkins       Janet Hunter
Michelle Hall      Katie Haqq         Megan L. Helzner   Mary Ann Histed    Kelly Horrigan     Lisa Hunter
Kathleen Halliday  Kathryn Harris     Margaret Hemley    Raphael Hitzke     Barbara Horter     Richard Hurley
Patricia Halpern   Megan Hartman      Kelley Heneveld    Douglas Hiza       Andrea Horton      Dana Huschle
Madeleine-Therese  Maralyn Hauer      Sarah Hensel       Melanie Hoekstra   Jerry Horton       Abigail
 Halpert                                                                                        Hutchinson
Bob Hamburg        Todd Hauser        George Heritier    Kim Hoffman        Caroline Howe      Jenny Hutchison
Mundi Hamilton     Heather Hawkinson  Julie Herres       Paula Hoffman      Jan Howe           Marian Huttman
Safiya Hamit       Carol Hay          Emily Herrick      Heather Hoffmann   Christopher        Diane Hyndman
                                                                             Howell
Chris Hammack      Erin Hayde         Daniel Herron      Heidi Hoffmann     Dawn Hoyt
----------------------------------------------------------------------------------------------------------------
                                                        I
----------------------------------------------------------------------------------------------------------------
Annika Ihnat       Kelly Ireland      Wendy Isaacs       Misty Ismail       Samuel Itin        Kathy Ivey
----------------------------------------------------------------------------------------------------------------
                                                        J
----------------------------------------------------------------------------------------------------------------
Carol Jackson      Michael James      Katherine Jensen   Sabrina Johnston   Gina Jones         Carey Jung
Rachel Jacobs      Chris Janni        Melissa Joachim    Annabel Jones      Leslie Jones       Gia Jurevich
Britt Jacobson     Marsha Jarvis      JoiLin Johnson     Emily Jones        Matthew Jones      Mary Jursinovic
Virginia Jacobson  Patricia Jenatsch  Susan Johnson      Emily Jones        Robert Jones
Garland Jaeger     Alyssa Jenkins     Whitney Johnson    Georgia Jones      Janine Jordan
----------------------------------------------------------------------------------------------------------------
                                                        K
----------------------------------------------------------------------------------------------------------------
K. K.              Shira Katz         Louise Kennedy     Barbara King       Joan Kogan         Laura Kremser
Nadine Kagan       Jennifer Kaufer    Charity Kenyon     Khalil Kinge       Carolee Kokola     Philip Kreycik
Sarah Kalloch      Lise Kauffman      Debbie Kenyon      Melissa Kirby      Pauline Kolody     Martha Krikava
S. Kaplan          Shoshana Kaufman   Alexandra Ketchum  Annette Klapstein  Blanche            Sarah Kruger
                                                                             Korfmacher
Julia Kardon       Stephanie Keane    Meg Kettell        Joshua Kleiner     George Kormendi    Marina Kubicek
Janice Karlovich   Michelle Keaney    Cori Kettler       Laura Kleman       Marilyn Korsedal   Carol Kuelper
Albert Karok       Martha Keating     Ashley Keul        Gregory Koch       Chris Kosak        Ping Kwan
Leslie Karst       Annelise Kelly     Kerry Kilroy       Andrea L. Koeman   Sally Krasne
Sue Kasoff         Cait Kennedy       Jenn Kim           Dana Koga          James Kreider
----------------------------------------------------------------------------------------------------------------
                                                        L
----------------------------------------------------------------------------------------------------------------
Margaret           Erin Lares         Fiona Lee          Janice Lewis       Robert Lockhart    Sharon
 LaBarbera                                                                                      Lukachevich
Madeline Lafleur   Kay Larkin         Sarah Lee          Ken Lewis          Jenna Lollis       Sally Lukez
Sherry Lam         Brooke Larm        Tawanna Lee        Kristin Lewis      Julie Lombardo     Kirsten Lund
Michele Lamb       Megan Larmer       Michelle Leggore   Sue Lewis          Sharon Long        Sherry Lund
Gwen Lambert       Amie LaRouche      Carrie Lehtonen    Carrie Ley         Thornton Long      Hannah Lupien
Nick Land          Phil Latella       Kristin Leonard    Sallie Liben       Bobby Loparo       Catherine Lydon
Leticia Landa      Meghan Laurs       Dave Leone         Catherine Ligenza  Brooke Lopez       Robert Lyle
Swann Lander       Jean Layton        Leslie Lepeska     Elizabeth          Michele Lord       Linda Lynch
                                                          Lillstrom
E.D.M. Landman,    Silvia Leahu-      Charles Leps       Erin Linville      Patricia Lovejoy   April Lynskey
 M.D.               Aluas
Donna Landon       Jill Leahy         Shelley Levine     Christopher Lish   Jesse Lucas
Leah Langstaff     Nathan Leamy       Danielle Levitt    Brian Littlefield  Barbara Luck
Jennifer Lanski    Nicole Leaper      Jeffrey Levrant    W. Ryan            Judith Luebke
                                                          Livingston
Rachel Lanzafame   Deanna Lee         Don Lewis          Joann Lo           Jocelyn Luglio
----------------------------------------------------------------------------------------------------------------
                                                        M
----------------------------------------------------------------------------------------------------------------
Lori Maas          Lindsay Marquez    Rosemary Maziarz   Sara Corinne       Ena Miceli         Ivy Morales
                                                          McLarin-Hadden
Elizabeth          Kim Marshall       Marghretta McBean  Angela McLaughlin  Eric Milano        Christina Morkner
 Macaulay                                                                                       Brown
Emily Madara       Charles Marshik    Brant McClelland   Brenda McMahon     Deborah Miller     Rita Morris
Amber Madole       Elizabeth Marston  Praline McCormack  Jana McMahon       Jayme Miller       Tara Morris
Raven Magill       Sheila Martin      Kim McCoy          Robin McMullen     Katherine Miller   Teresa Morris
Marsha Magnone     Alfred Martinez    Jonathan McCurley  David McNulty      Marilyn Miller     Robert Morrison
Chris Maguire      Eleanor Martz      Andrea McDonald-   Jason McWright     Tiffany Miller     Marina Morrone
                    Gomez              Fingland
Nadia Mahdi        Oliver             Robert and         Kristi McWright    Linda Millman      William Morrow
                    Masciarotte        Rebecca McDowell
James Maher        Shannon Massey     Tom McElderry      Jeanne Medina      Carol Milstein     John Mortensen
Glenda Mahoney     Annmarie Mastro    Janis McElhaney    Veronica Medina    Danisa Mishima     Jenna Moscoso
Elena Makansi      Mimi Mather        Sally McEntire     Kristin Megan      Jennifer Mitchell  Alice Mosley
Karen Maki         Anne Matthei       Brooke McFee       Jessica Mehlhoff   Kate Mitchell      Katie Moulton
Rachel Makleff     Kuhl Matthew       Alma McGoldrick    Anthony Melli      David Modarelli    Jean Muckian
Sharon Malek       Lissa Mattson      Alycia McGoldrick  Matthew Memoli     James Monaco       Charlotte Muller
Louise Mann        Tamara Matz        Kevin McGovern     Richard Mendes     Montana Made       Robin Mullet
Clarence Manning   Rich Mauro         Nathan McGowan     Teresa Mendieta    Nicole Montesano   Michelle Mullinax
Travis Manntz      Michael May        Jenny McGuire      Bethany Menkart    Aimee Montgomery   Cecilia Murphy
R.J. Marchetti     Brianna Mayberry-  Andrew McIntire    Linda Mensinga     Rebecca            Matthew Murphy
                    Kurth                                                    Montgomery
Lydia Marchuk      Peter Mayes        Suzi McKee         Sue Menz           Angeline Montoya   S. Murphy
Mindy Marin        Kim Maynard        Alice McKenney     Laura Merrick      Dawn Moore         Timothy Murphy
Howard Markwell    Gisbert Mayr       Elijah McKenzie    Monika Merryman    Meg Moorman        Mindy Mutterperl
----------------------------------------------------------------------------------------------------------------
                                                        N
----------------------------------------------------------------------------------------------------------------
Camille Nava       Paul Nelson        Lynn Neuman        Shelly Nichols     Rosanna Nissen     Lucy Norris
Ana Neff           Terri Nestel       Veronica Nevils    Tyler Nickl        Sherri Nixon       Jennifer Nu
Ginny Nelson       Mary Neuendorf     Danielle Ngo       Derick Niss        Katherine Norris
----------------------------------------------------------------------------------------------------------------
                                                        O
----------------------------------------------------------------------------------------------------------------
Edna Oakley        Sammy Oh           Margarite Olmos    Jenine Osbon       Jenna Osiason      Kris Ohleth
Christine          Barbara Oleksa-    Meg Olson          Janet Osborn       Mary Ostafi        Castle O'Neill
 Odabashian         Reiss
Elizabeth          Jennifer Osborn    Mark Owen
 O'Donnell
----------------------------------------------------------------------------------------------------------------
                                                        P
----------------------------------------------------------------------------------------------------------------
Gina Paige         Ken Parker         Michael Peel       Cindy Pfender      Royal Pitchford    Melinda Preston
Theresa Palazzo    Sarah Parker       Tamar Peltz        Maneka Phalgoo     Jenny Pompilio     Dave & Sue Priest
Joan Palinski      Jill Parsh         Kim Penney         Hoang-Lien Pham    Judith Ponder      Terri Procise
Shaina Palmere     Craig Patane       Anna Perna         Caleb Phillips     Tony Pope          Lisa Pullen
Julie Palumbo      Michael Patrick    Kim Perszyk        Carla Phillips     Ronna Popkin       Mary Purdy
Cinzia Panetti     Karen Pavone       Joanne Peterson    Gabriel Phillips   Anna Porter
Ivano Panetti      Abigail Pawska-    Kila Peterson      Jessica Phillips   Dana Porter
                    Orzolek
Monica Paolini     Stephanie Pearce   Rachel Pettit      Matt Pierle        Lorrie Posegay
Burt Pardue        Cindi Pearlman     Margaret Pfeiffer  Patricia Pisani    Margo Powell
----------------------------------------------------------------------------------------------------------------
                                                        Q
----------------------------------------------------------------------------------------------------------------
Gina Quattrochi    Magaly Queralt     Tristan Quinn-
                                       Thibodeau
----------------------------------------------------------------------------------------------------------------
                                                        R
----------------------------------------------------------------------------------------------------------------
Lucy Radys         Kelton Reid        Kathleen Reside    Sandra Rivera      Grace Roman        Holly Rushing
Beverly Rae        Mary Reid          Jason Retzke       Rosemari Roast     Nancy Rosch        Ian Russell
Tiffany Rapplean   Carol Reilly       Michelle Rice      Krista Roberts     Amy Rosenberg      Kathleen Russell
Mary-Noelle Rasi   Dorothy Reilly     Cort Richer        Evette Robinson    Jeffrey Rosenberg  Minette Russell-
                                                                                                Irace
Wendy Ready        Lucinda Reinas     Susan Richman      Laura Robinson     Myriam Ross        Branka Ruzak
Jennifer Reagan    Rachel Reinhart    Brent Riggs        Mary Rochon        Terri Roush        Amanda Ryan
Errica Redmind     Barbara Reinish    Kathleen Riley     Valerie Rodgers    Susan Rowe
Eric Reed          Dick Reiss         Jeffrey Rios       Bari Rodriguez     Wg Rowe
Jess Reed          Tamara Reitz       Judith Risen       Misty Rogers       Constance Rubin
Laura Reeder       Jody Renaud        Jonathan Risley    Yolanda Rogers     Paul Rucker
Annie Reichert     Douglas Renick     David Ritchie      Linda Rolfe        Susan Ruffridge
----------------------------------------------------------------------------------------------------------------
                                                        S
----------------------------------------------------------------------------------------------------------------
Lauren Sacha       Josh Schaffner     Julie Sergovic     Brilana Silva      Tim Smith          James St. Pierre
Aaron Sachs        Cynthia Schandl    Claudia Shabin     Shakirah Simley    Vanessa Smith      Amiee Staggs
Eileen Sackett     Christine Schantz  Julie Shaffer      Jill Simone        Bobbi Snodgrass    Nicole Stancel
Carmen Saenz       Ariel Schlager     Ralph Shannon      Sandra Simpson     Marc Snyder        Craig Stancliff
Alison Sager       Randy Schlesinger  Melina Shannon-    Winston Sims       Nancy Snyder       Jennifer Stanley
                                       DiPietro
Susan Salafsky     Kim Schlossberg    Deborah Shapiro    Grace Singleton    Todd Snyder        Autumn Starkey
Deborah Salerno    Daniel Schmalz     Laura Sharkey      Kim Sintoni        Judith             Ninian Stein
                                                                             Soffiantino
Jennifer           Katie Schmieder    Paula Shatkin      Vidya Sivan        Mardi Solomon      Laurie Steinberg
 Salkewicz
Shelby Salley      Brian Schneider    Kirk Shaunfield    John Skelton       Jaime Soltero,     Sheryl Steinke
                                                                             Jr.
Rachel Salloway    Laurie Schneyer    Julie Shaw         Stacey Skole       Janet Sommers      Zan Sterling
Shira Sameroff     Gail Schorsch      Lorinda Shearburn  Anna Slabicki      Shivani Sood       Tim Stevenson
Nicole Sandberg    Destiny Schwartz   Laura Sheinkopf    Emily Sloane       Tristan Sophia     Anika Stewart
Shari Sands        Betsy Scott        Charles Shelly     Kristin Small      Aletha Soule       Tracy Stone
Jennifer Sandy     K. Scott           Stephanie Sherman  Alex Smith         Kathy Sours        Vladimir
                                                                                                Strugatsky
Jada Santoro       Duane Sebesta      Robyn Shores       Debra Smith        Jennifer Spiker    Tia Sukin
                                       Foster
Christine Sass     David Sedovic      June Shrestha      Julia Smith        Carol Spillane-    Kathryn Sukites
                                                                             Mueller
Mark Saunders      Lisa Selby         Rober Shwajlyk     Kimberly Smith     Gary Spoto         Shauna Sullivan
Nancy Sawyer       Aurelia Serbia     Will Siegel-Sawma  Kristin Smith      Chris St. John     Joy Swanson
----------------------------------------------------------------------------------------------------------------
                                                        T
----------------------------------------------------------------------------------------------------------------
Meredith Tabscott  Lisa Taylor        Charissa Thomas    Mary Tierney       Towne's Harvest    James Turner
                                                                             Farm
Katy Tafoya        Susan Taylor       Luanne Thomas      Amy Tinto          Suzanne Trenney    Roger Turpin
Lisa Talbot        Martha Teeter      Martha Thomas      William Tippie     Jennifer Trotter   Sharon Tutchings
Jessica Tallarico  J.P. Teets         Nancy Thomas       Linda Titolo       Susan Trotter      Curtis Tyler
Becky Talyn        John Teevan        Elizabeth          Peter Tochet       Kristy Truax
                                       Thompson                              Nichols
Lisa Tam           Stan Tellin        Jennifer Thornton  Daum Tod           Francisco Tschen
Rachel Tanksley-   Kristin Terpening  K.C. Thorson       Michael            John Tucker
 Russell                                                  Tomczyszyn
Bruno Tarazona     Leslie Terzian     Rick Thronburg     C. Toporow         Eric and Sheree
                    Markoff                                                  Tuppan
Dorothy Taylor     Irene Tetonis      Christine Tiballi  Melissa Torres     John Turlington
----------------------------------------------------------------------------------------------------------------
                                                        U
----------------------------------------------------------------------------------------------------------------
Aaron Ucko         Marc Udoff         Dee Ulano          Julie Ulmer        Marsha Ungchusri   William Upchurch
Amy Urbanek
----------------------------------------------------------------------------------------------------------------
                                                        V
----------------------------------------------------------------------------------------------------------------
Elisa van Dam      Amanda Vanni       Vishal Verma       Lori Vincent       Emily Vokac        Crystal Vossler
Katrin van Dam     Vikas Verma        James Vermillion   Kristen Vittitow   Linda Vono
----------------------------------------------------------------------------------------------------------------
                                                        W
----------------------------------------------------------------------------------------------------------------
Julie Wade         Susan B. Wasch     Natalya Weinstein  Linda Wheeler      Kate Williams      Kari Wishingrad
Briana Wagner      Rebecca            Judith Weisman     Nina Wheeler       Linda Williams     Maria Wiskur
                    Waterhouse
Teresa Wagner      Janel Watkins      Jennifer Weiss     Angie White        Pam Williams       Ann Wiswell
Ida Wainschel      Christine Watson   Natalie Weiss      Kimberly White     Tom Williams       Devera Witkin
Winford Walker     Laci Watson        Claire Weiss       Parris             Jerry Williamson   Chris Wittrock
                                       Brownstein         Whittingham
Donna Wallace      S. Watson          Scott Weissflog    Amy Whitworth      Thea Williamson    Sharon Wolbert,
                                                                                                Ph.D.
Emily Walsh        Cheyenne Weaver    Jennifer Wellard   Terry Wiggins      Cacynthia Willis   Linda Woodworth
Paula Walter       Gina Webb          Kindra Wentworth   John Wight         Lila Wilmerding    Donald Worley
Karen Waltuch      Clare Webber       Cheryl Wentz       Briana Wilcox      Ariel Wilson       Jennifer Worth
Jessica Ward-      Kathryn Weber      Ruby Westbrook     Robyn Wilds        Evis Wilson        Frank Wright
 Ramirez
Kelly Waring       Judy Webster       Carly Westerman    Flynne Wiley       Gregory Wilson     Jennifer Wright
Dee Warner         Sally Weed         Jody Westfall      Andre Willey       Linda Wilson       Beth Wyatt
Sarah Warran       Kelly Weger        Page Westover      Carolyn Williams   Tamsen Wiltshire   Mark Wyatt
Kris Warrenburg    Chris Weidenbach   Mike Weyand        Christopher        Erin Winter        Barbara B. Wyle
                                                          Williams
Kristen Wasbotten  Elizabeth Weigand  Carrie Wheeler     Jason Williams     Briar Winters
----------------------------------------------------------------------------------------------------------------
                                                        Y
----------------------------------------------------------------------------------------------------------------
Michael Yares      David Yeazel       Tara Yeager        Rachel Yon         Kristy York        Abby Youngblood
Stephanie York     Ed Yowell
----------------------------------------------------------------------------------------------------------------
                                                        Z
----------------------------------------------------------------------------------------------------------------
Jim Zack           Lina Zerbarini     Jodi Zeigleru      Robert Zeuner      Alexandra Ziss     Amy Zoldak
Susan Zubalik      Nitsa Zuppas
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
    To the Members of the House Committee on Agriculture,

    This was drafted by ten young farmers from Rhode Island and 
Massachusetts who met on 5/5/12 to discuss the 2012 Farm Bill and the 
kind of USDA funding we would like to see in the next 5 years.
    I am a [fill in the blank] with hopes of soon becoming a farmer.
    In general, I support the recommendations of NSAC and Food And 
Water Watch to increase funding for provisions and programs that 
promote sustainable agricultural production, fair and equitable 
treatment of farmers and farm workers, rural development and family 
farms, ecological diversity and environmental conservation.
    Below are some suggestions that support these values within the 
2012 Agriculture Reform, Food and Jobs Act. With scale-appropriate 
tiered regulation and support for new and beginning farmers, we can 
grow America towards a healthy and sustainable future.
    I support, and want to applaud the Committees continued support of 
the following changes in the 2012 Farm Bill:

  <bullet> Sen. Leahy's provision that would make it easier for SNAP to 
        be used at farmers markets and CSAs.

  <bullet> The $5 million in research funding allocated for sustainable 
        agriculture. This is a step in the right direction, but more 
        should be allocated for local and sustainable agriculture 
        research and education.

    Please consider the following suggestions, which are crucial for 
America's future:

  <bullet> Cap subsidy amounts on a per-farm basis and reinstate 
        Microloans and Value-Added Grants, especially for beginning 
        famers.

  <bullet> Shift funding away from ethanol and commodity production and 
        towards sustainable agriculture and rural development research 
        and training in Title VI (Rural Development) and Title X 
        (Horticulture and Organic Agriculture).

  <bullet> Please reinstate mandatory funding for 2501 under Title XIV 
        (Miscellaneous) in order to support disadvantaged farmers and 
        continue the standing fund for farm worker disaster relief.

  <bullet> Reinstate farm-to-school program funding under Title IV 
        (Nutrition) in order to feed a healthy future population of 
        Americans and support America's Family Farms.

  <bullet> A large portion of funds under Title II (Conservation) 
        supports reducing the environmental harms of CAFOs. We think a 
        better system would be to regulate CAFOs and instate a punitive 
        system that makes polluters pay, and shifts conservation 
        dollars to support more sustainable operations.

  <bullet> Remove loopholes from the Packers and Stockyards Act under 
        Title XI (Livestock) that allow for abuse of livestock 
        producers. This will help small farmers to get their product to 
        market and receive a fair price that will let them stay in 
        business.

  <bullet> Although there has been a great deal of positive press 
        regarding the shifts in Title I (Commodities) to reduce direct 
        crop subsidy payments and shift towards crop insurance support, 
        in reality the tax payer resources will be directed to the same 
        large-scale, conventional production, monocrop operations, that 
        have harmful environmental and social consequences. With no 
        conservation requirements within the new Revenue Insurance 
        Scheme we fear production will be pushed onto marginalized land 
        causing adverse affects on our natural resources.

    Thank you for considering our voices,

 
 
 
Annie Bayer              Tess and Laura Brown-    Keally Cieslik
                          Lavoie
Samuel Dickman           Ava Donaldson            Dylan Ettlinger
Adam Graffunder          Annie Macdonald          Kaishian Patricia
Margiana Petersen-       Sianna Plavin            Rosasharn Farm CSA
 Rockney
Sean Ryan                Ellen Shadburn           Fay Strongin
 

                                 ______
                                 
    Dear House Agriculture Committee:

    Because of the important role farmer's play in our food system, 
taxpayers have supported a safety net for farmers for nearly 30 years, 
always in return for a guarantee that subsidized farmers will follow 
basic conservation practices in their fields. This revolved around the 
basic realization that while Americans needed food, it was critical to 
utilize conservation practices in order to preserve the economic 
viability and productivity of our farmlands and resources for the 
future.
    As the House Agriculture Committee prepares its version of the farm 
bill, I urge you to restore the link between taxpayer-supported 
subsidies for crop insurance and conservation compliance protections 
that will protect the nation's water and land.
    This action is especially important as Congress considers 
eliminating direct payments, the major subsidy program that is linked 
to conservation compliance, and moving some of those funds to support 
increased subsidies for crop insurance, which lacks compliance 
requirements. Unless you help to reconnect crop insurance subsidies to 
conservation compliance, a significant part of farmers' incentive to 
follow conservation plans will disappear this year.
    Farmers need crop insurance as part of their safety net and the 
public needs basic conservation practices on farms to make sure that 
quality farm land and water can support future generations as well as 
the current needs of our country. We cannot accept sacrificing long-
term economic and environmental sustainability for short-sighted and 
short-term economic profits.
    Connecting eligibility for crop insurance subsidies to conservation 
compliance is fiscally responsible and ensures public subsidies for 
farmer's insurance premium payments align with the public's interest in 
basic conservation of our soil and water.
            Sincerely,

 
 
 
Jane Allen Jones         Dale Anderson            Leona Bochantin
Sondra Cabell            Mary Clark               Whitney Davis
David Dempsey            Kathleen Dolson          David Eash
Thomas Evans             David Gates              Joanne Graf
Michael Hannan           Susan Harper             Trevor Harris
Brauna Hartzell          David B. Hauge           Katie Heathcote
James Holtzman           Greg Houseal             Lorene Hunter
Shyonna Johnson          Mary Laudon              Brett Lorenzen
Melissa Moulton          Joy Peterson             Libby Reuter
Alex D. Rindler          2LT Jake Ryan            Holly Schmitt
Robert Sessions          Janet R. Warner          Kathi Whitman
Ann T. Winkelmann        Walt Zuurdeeg
 

                                 ______
                                 
    The sum of agricultural support from the Federal Government is 
immensely unbalanced. The current paradigm spends the vast majority of 
funds on supporting large scale grain based agriculture. The farm model 
created by these grain subsidies is destroying the entrepreneurial farm 
industry, destroying the family farm, and handing the reigns of our 
food industry to mega corporations. The average age of farmers in this 
nation is swiftly approaching 60 years old. The next decade will find 
our food supply outsourced to other countries or taken over by 
corporate entities resulting in large scale monopolization of one of 
the three primary necessities for human life.
    I urge the House Committee on Agriculture to re-align our nation's 
food and farming priorities in such a way that the playing field for 
small farm business is leveled. I urge the House Committee on 
Agriculture to re-align our nation's food and farming priorities in 
such a way that grain based food products such as high fructose corn 
syrup no longer beat healthful foods such as fruits, vegetables, and 
healthy meats on price point, primarily because they are subsidized by 
citizen tax dollars.
    I urge the House Committee on Agriculture to re-align our nation's 
food and farming priorities in such a way that young U.S. Citizens find 
a government environment which encourages and assists them in starting 
up new farming ventures, rather than an environment filled with land-
mine regulations which do nothing for the small farm business owner and 
everything for the large scale corporate agriculture.
    In summation, I urge the House Committee on Agriculture to support 
the following amendments:

  <bullet> Family Farms First and Training for Beginning Farmers--put 
        forward by Senators Brown (D-OH) and Nelson (D-NE)

  <bullet> Affordable Land for Farmers, Forever--put forward by Senator 
        Leahy (D-VT)

  <bullet> Non-GMO Plant and Animal Breeding--put forward by Senator 
        Gillibrand (D-NY)

  <bullet> Crop Insurance for Organics--put forward by Senator Casey 
        (D-PA)

  <bullet> Beginning Farmer and Rancher Opportunity Act--put forward by 
        Congressman Walz (D-MN) and Congressman Fortenberry (R-NE)

  <bullet> The Local Farms, Food, and Jobs Act--put forward by 
        Congresswoman Pingree (D-ME) and Senator Brown (D-OH)

    Thank you sincerely, for your time.

 
 
 
Gwenyth Hallet           Joel Hallet              Loralei Hallet
Mark Hallet              Miriam Hallet            Roger Hallet
William Hallet           Amanda Piepenhagen
 

                                 ______
                                 
    We need a farm bill that helps the margins, not re-establishes the 
status quo. We need to create more jobs through agriculture, which 
involves more diversification and less oil-dependent methods--more real 
people doing work that they're compensated for fairly.
    New policies ought to protect the productivity of agricultural 
lands by discouraging environmentally harmful practices--particularly 
when given crop insurance subsidies--and those crop insurance subsidies 
ought to be available to non-commodity growers too.
    The Conservation Title has been making an impact--we've been seeing 
a reduction in erosion and wetland conversion, and that must be 
maintained (and not eroded, like current crop insurance encourages--to 
plant every last inch of acreage, environmentally sensitive or not). 
Please reform the crop insurance subsidy. Really, it shouldn't be 
outsourced like it currently is. The government and taxpayers should 
keep the massive incomes the insurance companies currently receive, and 
run it more efficiently and reinvest it into our economy.
    Farming is a very hard business to get into and survive in, and a 
new farm bill should include policies that enable beginning and 
socially disadvantage producers to access land, credit, and crop 
insurance.
    The farm bill can either uphold the status quo, or give support to 
new sustainable growth in our rural economies. Please work for new 
growth.
    Thank you!

 
 
 
Jenifer Angerer    Theresa Carbrey    Laura Engel       Allison Gnade
 

                                 ______
                                 
    On behalf of the at-risk families living in lower-income 
communities that suffer the consequences of poor access to affordable 
healthy food and nutritional education, we urge you to seize the 
immediate opportunity to directly impact the health of these residents, 
while also reducing their long-term cost burden to health care.
    The farm bill legislation that will be considered by you for 
approval in 2012, with appropriate changes or enhancements, has the 
potential to impact childhood obesity, diabetes and heart disease in 
areas identified as having poor access to affordable healthy food (food 
deserts). Diabetes affects an estimated 25.8 million U.S. adults--over 
eight percent of the population. Left untreated, diabetes can cause 
blindness and end stage renal disease. It also increases the risk of 
cardiovascular disease by two to four fold and is the seventh leading 
cause of death for Americans. The diabetes hospitalization rates in 
2009 were 17.7 per 10,000 residents. Communities with poor to limited 
access to health care, as well as affordable healthy food and 
nutritional education are estimated to have three times the 
hospitalization rate of the entire population. In all of our 
communities the incidence of childhood obesity has increased, and lack 
of access to good nutrition have contributed to our national problems. 
Addressing childhood obesity through education and exposure to good 
nutrition practices will impact these staggering numbers and costs. 
Everyone wins--the individuals impacted by these chronic diseases, the 
communities they live in through the creation of a healthy, educated 
and productive population, and the cost of health care provided by 
Federal, state and local governments and employers too!
    In addition to supporting the recommendations of your colleagues, I 
urge your support of an approved 2012 Farm Bill that ensures:

  <bullet> education and financial support to generate growth and 
        employment in the healthy food retail sector.

  <bullet> incentives to preserve and increase regional healthy food 
        production.

  <bullet> funding for pilots that bring together community groups, 
        schools, nonprofits and health care providers that focus on 
        reducing childhood obesity and hospitalization related to 
        diabetes.

    Many of us involved in the health care arena are committed to 
partnering with our communities to improve access to affordable healthy 
food and the understanding of the role good nutrition plays in one's 
personal health. In fact, many organizations are already implementing 
healthy food programs for our patients, residents and staff. In short, 
we promise live out message we advocate in this letter.
    We urge you to support the farm bill with the changes we have 
outlined.
    Thank you for considering this request.
            Sincerely,

 
 
 
Janice Burnett           Diane E. Cohen,          Marie Dow
                          R.H.I.A.
Patricia Eck             Omelfi A. Garcia         Jennifer Giuffrida
Walter Hund              Charles Ignatius         Judy Lindberg
Laurie Motejl            Julio Rodriguez          Sarah Shaikh
Karen Spann-
 Hollingsworth, R.N.
 

                                 ______
                                 
    I am writing to request your support for a progressive farm bill 
that increases access to healthy food for ALL Americans. Given that 
many of our neighbors are still facing dire economic circumstances, it 
is essential that Congress maintain SNAP funding.
    A $36 million cut to SNAP is not the way to go. The Committee 
should focus on writing a farm bill that creates economic opportunity 
and improves access to healthy, affordable food for all Americans. CFSC 
members had important wins in the Senate's Agriculture Reform, Food and 
Jobs Act and the House Agriculture Committee should include them in 
their bill.
    Community Food Projects Program--$10 million per year to help 
communities build food self-reliance.
    Farmers Market and Local Food Promotion Program--$20 million per 
year to develop farmers market capacity and create food hubs to connect 
farmers with schools, hospitals, grocery stores and other markets.
    Hunger-Free Community Incentive Grants--An average of $20 million 
per year for a new SNAP local fruit and vegetable incentive grant 
program at farmers markets and other healthy food retailers.

 
 
 
Chris Conkling           Alison Goldstein         Marie Kessler, J.D.
Holly Nelson             Amy Peters               Dave Redding
 

                                 ______
                                 
    Cuts to our nation's food safety net have on a serious impact on 
our most vulnerable citizens. Cuts to SNAP (food stamps)--like the ones 
currently under consideration in the farm bill--would further limit 
access to the food and nutrition programs that millions of older 
Americans rely on. Meanwhile, the Commodity Supplemental Food Program 
(CSFP), which provides monthly boxes of food to low-income seniors, 
faces its own funding threats. These issues matter. What will seniors 
do if they no longer have access to these vital programs?

 
 
 
Huxley Coulter           Julianne Craig           Jillana Laufer
Shannon Nasser           John Spencer             Emily Stimmel
Beverly Trottier         Karen Weidner            Elizabeth Zenker
 

                                 ______
                                 
    2012 Farm Bill has to shift the animal based agribusiness to a 
sustainable agriculture by encouraging farmers and ranchers transition 
to Organic Plant Farming (OPF). Only OPF can stop toxin pollution like 
chemical fertilizers, pesticides, and antibiotics. Healthy foods can be 
produced only from healthy soil and clean water. We have to make the 
Earth livable by allowing the cohabitants to maintain the eco-balance 
on this Planet.

 
 
 
Sonny Dinh               Thaohui Liu              Joy Su
Judith Huczko            Jun Meng                 Nga Truong
Tuan Le                  Joy Nelson-Calhoun       Jean You
 

                                 ______
                                 
    My name is [fill in the blank], and I live in [fill in the blank], 
AL. I'm concerned about the obesity epidemic in Alabama, and I'm a very 
strong supporter of local farmers and fresh, healthy food choices for 
everyone. I see billions of dollars spent on food that is produced 
outside of Alabama leaking from our economy. We need to keep those 
dollars here at home. I'm aware of several proposed bills that support 
local farms and foods including the Local Food Farm and Jobs Act (H.R. 
3286); Let's Grow Act (H.R. 4351), Beginning Farmer and Rancher 
Opportunity Act (H.R. 3236) and H.R. 4284).
    As a constituent, I urge Congress to:

    (1) Support the Local Farms, Food and Jobs Act (S. 1773, H.R. 
        3286); Let's Grow Act (H.R. 4351); Beginning Farmer and Rancher 
        Opportunity Act (H.R. 3236) and H.R. 4284.

    (2) Refuse further cuts to the SNAP (formerly Food Stamps) and 
        preserve TEFAP (The Emergency Food Assistance Program) that 
        provides food to Food Banks. I can't imagine that church 
        pantries and other feeding programs can handle more demand in 
        this economic downturn. Alabama Food Banks were on the 
        frontlines of disaster response this April--we need to keep 
        this critical network of food distribution intact.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Wade Austin        (Decatur)          Lori Pence        (Huntsville)
Debbie Roche       (Morgan County)    Karen Voelker     (Huntsville)
------------------------------------------------------------------------

                                 ______
                                 
                Feeding Assistance Program Form Letters
    I ask that you pass a farm bill that protects and strengthens 
programs like TEFAP, SNAP & CSFP . . . these programs assist in 
ensuring healthy outcomes in the lives of hungry families and 
individuals . . . many are seniors, single mothers and kids. ``A 
healthy farm bill is a good farm bill for the future of our country'' 
or ``We need a strong farm bill to help put more food on the table for 
hungry Americans when you talk about working class families, 
individuals . . . many of the vulnerable are seniors and kids.''
    I agree with the goal of deficit reduction, but we should not 
achieve it on the backs of the most vulnerable.

 
 
 
Ann Brown Rabiroff       Sharon Carter            Joyce Coe
Jason Davis              Sharon Davis             Helena Freeman
John Gusmano             Steve Janowitz           Avery Lawton
Dawn Lillis              James Madden             Judith McAloon
Matthew Molpus           Troy Olsen               Elsy Shallman
Joy Smrcina              Cynthia Suarez           Sondra Sweeney
 

                              derivation 1
    I ask that you pass a farm bill that protects and strengthens 
programs like TEFAP, SNAP & CSFP . . . these programs assist in 
ensuring healthy outcomes in the lives of hungry families and 
individuals . . . many are seniors, single mothers and kids. ``A 
healthy farm bill is a good farm bill for the future of our country'' 
or ``We need a strong farm bill to help put more food on the table for 
hungry Americans when you talk about working class families, 
individuals . . . many of the vulnerable are seniors and kids.''

 
 
 
Donna Berry              Mario Obledo, Jr.        Maritess Sanchez
Nicole Brisard           William M. Seyfried,     Victoria Ohman
                          Jr.
Tricia Heinrich          Roshunda Smith           Richard Plumlee, Jr.
Adrienne Lujan           Robin Stephenson         Caitlin Watkins
Megan Marsh
 

                              derivation 2
    Please pass a farm bill that protects and strengthens programs like 
TEFAP, SNAP, and CSFP. Cutting these programs is not the way to balance 
the budget. I urge you make them a priority in the next farm bill.

 
 
 
Shannon Archer           Peter Bunder             Philip Cox
Patricia Gibbons         Michael Guer             Erin Harris
Amy Hilt                 Mary Hurley              Norma Kinan
Gregory King             Omar Rodriguez           Beth Schumann
Kathryn Smith
 

                              derivation 3
    We need a strong farm bill to help put food on the table for 
vulnerable children, seniors, and low-income families. I ask that you 
pass a farm bill that protects and strengthens programs like TEFAP, 
SNAP, and CSFP. Cutting these programs is not the way to balance the 
budget. They are a lifeline to people struggling with hunger in your 
district, and I urge you make them a priority in the next farm bill.

 
 
 
Elizabeth Browne         John Bulla               Veronica Bulla
Dee Cannon               Kelly Clifton            Tania Crouch
Gay M. Eaton             Bridget Keeler           Angela Parent-Perez
Mary Prange              Anna Staples             Jill Teague
Orange Urban             Diane Woodman
 

                                 ______
                                 
    Cuts to our nation's food safety net have on a serious impact on 
our most vulnerable citizens. Cuts to SNAP (food stamps)--like the ones 
currently under consideration in the farm bill--would further limit 
access to the food and nutrition programs that millions of older 
Americans rely on. Meanwhile, the Commodity Supplemental Food Program 
(CSFP), which provides monthly boxes of food to low-income seniors, 
faces its own funding threats. These issues matter. What will seniors 
do if they no longer have access to these vital programs?

 
 
 
Huxley Coulter           Julianne Craig           Jillana Laufer
Shannon Nasser           John Spencer             Emily Stimmel
Beverly Trottier         Karen Weidner            Elizabeth Zenker
 

                                 ______
                                 
    Pass a strong farm bill that protects programs like SNAP, TEFAP, 
and CSFP which help provide food for millions of America's most 
vulnerable seniors, children, and working poor.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                    B
------------------------------------------------------------------------
Susan Babbitt      Janice Botsko      Ricky Brown       Sharon Bykerk-
                                                         Lonergan
Bev Black          Marilyn Brannon    Kirsten Burt
Julia Black        Corinne Broskett   Joanne Byars
------------------------------------------------------------------------
                                    C
------------------------------------------------------------------------
Stacey Cannon      Virginia Cassidy   R. Wayne          Kathleen
                                       Crandlemere       Crittenden
Gary Cronin
------------------------------------------------------------------------
                                    D
------------------------------------------------------------------------
Jill Dahlman       Michael Denham     Kristin Depew     Jonathan DeVito
Lisa D'Ambrosio    Danna Dennis       Rodney Derbigny   William
                                                         Dickerson
Karen DeLay        Lynette Dimock     Kimberly Doneche  David Dumas
Rachel Deierling
------------------------------------------------------------------------
                                    E
------------------------------------------------------------------------
Dinda Evans        Walker Everette
------------------------------------------------------------------------
                                    F
------------------------------------------------------------------------
Darlene Fields     Amy Ford           Janet Foster      John Fussell
------------------------------------------------------------------------
                                    G
------------------------------------------------------------------------
Tina Gallaway      Michael Garitty    Carol Gold        Mondelle Greene
Adrienne Gardner   Holly Gietl        Laura R.          Erica Grimm
                                       Goldstein
Andres Garganta    Migdalia Gloria    Samantha          Rand Guthrie
                                       Gorczewicz
------------------------------------------------------------------------
                                    H
------------------------------------------------------------------------
Christine Haar     Beverly Harris     Carole Henry,     Lucy Hillman
                                       M.S.W.
Barbara Haddad     Erin Harris        Sam Hensley       Alan Hollis
Sascha Harper      Mary Ellen         Kim Heying        Celeste Hong
                    Hasbrouck
------------------------------------------------------------------------
                                  J & K
------------------------------------------------------------------------
Fahari Jones       Kathleen Kinsey    Steven Kostis     Jean Kresse
 Warner
------------------------------------------------------------------------
                                    L
------------------------------------------------------------------------
Susan Land         Erma Lewis         Adrian Lilly      Keth Luke
Debra Lazo
------------------------------------------------------------------------
                                    M
------------------------------------------------------------------------
Barb M.            Hilary Malyon      Kathleen          Rev. Curt Miner
                                       McSweeney
Suzanne M. Mace    Natalie Mannering  Jacqueline        Michael Misquez
                                       Meehan
Carol Maghakian    Dave Mattozzi      Melissa Melissa   Chrysteen
                                                         Moelter-Gray
Joshua Maizel      Jean McFarland     Donna Mikulka     Matthew Morse
------------------------------------------------------------------------
                                  N & O
------------------------------------------------------------------------
Tim Nistler        Carol O'Neill
------------------------------------------------------------------------
                                    P
------------------------------------------------------------------------
Mary Phillips      Josephine          Lisa Powell       Boh Prypin
                    Polifroni
Vanna Pichel
------------------------------------------------------------------------
                                    R
------------------------------------------------------------------------
Ellen Radday       Mick Robinson      Judith Rosen      Sarah Ryan
Philip Robar       Lauren Rodriguez   Sophia
                                       Rubenstein
------------------------------------------------------------------------
                                    S
------------------------------------------------------------------------
Marijeanne         Laura Silverman    Suzanne Smithson  George Stadnik
 Sarraille                             Green
Deborah Schechter  Kristine Sims      Marie Snavely     Mrs. Struve
Michael Seager     Steven Skal        Martha Spencer
William M.         Angela Smith       Ann Sprayregen
 Seyfried, Jr.
------------------------------------------------------------------------
                                    T
------------------------------------------------------------------------
Ryan Toups         Rose Troyer        Sean Twohig
------------------------------------------------------------------------
                                    W
------------------------------------------------------------------------
Kevin Ward         Bill Weston        Bobbiejo Winfrey  Douglas
                                                         Woersching
------------------------------------------------------------------------

                                 ______
                                 
     Supplemental Nutrition Assistance Program (SNAP) Form Letters
                               variant 1
Hon. Frank D. Lucas, 
Chairman,
House Committee on Agriculture,
Washington, D.C.

    Hon. Frank D. Lucas (Chair),

    I am greatly worried about the future of hunger in America with 
respect to your recent proposal to cut funding for SNAP (Supplemental 
Nutrition Assistance Program).
    Are you aware that in 2010, approximately one in seven American 
households was food insecure? Additionally, instances of poverty in 
this country have been increasing for the past 6 years.
    Surely, you can agree that now is not the time to slash funding 
from important programs that help feed hungry families. I cannot 
understand why you would suggest that SNAP take a $33 billion funding 
cut.
    We need to continue to support families who need assistance. I hope 
you will recognize the importance of this goal and reinstate all 
funding to SNAP.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                    A
------------------------------------------------------------------------
Janice Anderson          Anthony Andreacola       Dorothy Andrews
------------------------------------------------------------------------
                                    B
------------------------------------------------------------------------
Rakesia B.               Adrian Bassow            Victor J. Bernacki
Shane Bobo               Gwendolyn Bogans         Faye Bohr
Guy Boyer                Mary Britton             Anthony Bunzynah
------------------------------------------------------------------------
                                    C
------------------------------------------------------------------------
Donna Jo Capps           Oscar E. Capps           Dan Cassario
Helen Cassario           Scott Cassario           William D. Chalmers
Robert Cheezum           P.T. Clarke              John R. Cluelow
Joyce Cluelow            Erin Confroy             Caitlyn Coombs
Malisa Cooney            Charlene Corbett
------------------------------------------------------------------------
                                    D
------------------------------------------------------------------------
Ruth Daniels             David DeLaney            Bertha DeLarge
Angela DeLisi            Sharon DeMarco           Frances DeRosa
Amy Diedrichson          William P. Difflo        Shirley Dill
Ellen Donahue            Valerie Dougherty        Douglas DuBois
------------------------------------------------------------------------
                                  E & F
------------------------------------------------------------------------
Kay F. Esworthy          Virginia Farley          John F. Farrell
------------------------------------------------------------------------
                               G, H, I & J
------------------------------------------------------------------------
Edward Gamble            Marge Hackney            Robert Hartzell
Susan Hayerty            Gertrude Hinman          Victoria Hobbs
Shirley Ivins            Dyanne E. Jackson        Ferdinand Johann
------------------------------------------------------------------------
                                    K
------------------------------------------------------------------------
Toscha Kendall           Nancy V. Kennedy         John F. Kennoy
Kevin Kerper             June King                Bruce C. Kramer
------------------------------------------------------------------------
                                    L
------------------------------------------------------------------------
Robert Landry, Jr.       Sarah Lyons
------------------------------------------------------------------------
                                    M
------------------------------------------------------------------------
Kevin J. Macky           Kim Maghan               Diane Mahoney
Paul Mahoney             Donna Markgraf           Thomas Markgraf
Robin Marks              Stacy Markward           Thomas Markward
Samuel Marsa             Kathleen Matlack         Mary McCracken
Wendy L. McDermott       Sabine D.H. Mehnert      Phylis J. Meichan
Abigail S. Messenger     Amy Minnich              Loretta Morrow
Wayne C. Murphy          Laurie Murry             Thomas Myer
------------------------------------------------------------------------
                                  N & O
------------------------------------------------------------------------
Alicia Newsome           Betzy Newsome            Brian T. Newsome
Madonna Nichols          D. Oberton
------------------------------------------------------------------------
                                    P
------------------------------------------------------------------------
Rose Pedersen            Daniel Perla             Edward J. Phelan III
Tabitha Phillips         Dina A. Pluta            Jay D. Pluta
Grace Post
------------------------------------------------------------------------
                                    R
------------------------------------------------------------------------
Alana Reichfeld          James Reimel             Lorene M. Robinson
Renee Robinson           Angel L. Rodriguez       Carmen Ruiz
Dianara Ruiz             L. Joyce Rupp
------------------------------------------------------------------------
                                S, T & U
------------------------------------------------------------------------
Robert Saliba            Bryon Saris              M.J. Schemelia
Kelly Schenberger        Constance D. Schwein     Richard ``Rick''
                                                   Schwein
Ken Short                Joan Spataro             Renee St. Maur
Arthur Stewart           Olga I. Torres           Nicole L. Utley
------------------------------------------------------------------------
                                V, W, & Z
------------------------------------------------------------------------
Cheryl Varjabedian       Dennis M. Victor         Angela Visconti
Steve Volz               Dorothy Wames            Melissa Wames
Mark Wilbur              Nancy Wilbur             Diana Winter
Kristina Wright          Jo Ann Zanetich          Natasha N. Zirbel
------------------------------------------------------------------------

                               variant 2
    Should we let anyone go hungry in the U.S.? Cutting programs that 
feed those who are the least among us is no way to balance our budget. 
Please protect funding for critical Federal nutrition programs, 
including the Supplemental Nutrition Assistance Program (SNAP) as you 
work to reauthorize the farm bill.

 
 
 
Marcus Alston            Jeffery A. Behling       Larry Booth
Charlene Hinckley        Vicki Keskinen           Larry L.
Susan Meyer              Edith Parker             Susan Snyder
Robin Wallace
 

                                 ______
                                 
                      Feeding America Form Letter
    I work for Feeding America, the nation's leading domestic hunger-
relief charity. Through my day-to-day work, I know that many families 
in our country are struggling. With increased demand for emergency food 
assistance, high food and gas prices, and declines in TEFAP 
commodities--a major source of the food Feeding America's network of 
food banks distribute--hunger is a serious problem in our country. We 
need a strong farm bill to make sure that struggling families can put 
food on the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our communities cannot 
afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Caren Bersamin     Mary Callaghan     Elizabeth         Devi Chari
                                       Chandler
David Edders       Betsy Harman       Michael Huffman   Ian Hunter
Andy Isztok        David Lee          Diane Letson      Daphne Logan
Kathryn Lyons      Peter Mavrovic     Christopher Moss  Elizabeth
                                                         Nielsen
Todd Oetting       Jerry Rice         Janine Stines     Kelli Walker
------------------------------------------------------------------------

                                 ______
                                 
                 From letters in Support of Food Banks
    I am a supporter of Feeding America and my local food bank. Despite 
the recent improvement of the economy, there are still many people who 
may not know where their next meal will come from. We need a strong 
farm bill to help put food on the table for vulnerable children, 
seniors, and low-income families. Please pass a farm bill that protects 
and strengthens programs like TEFAP, SNAP, and CSFP. Cutting these 
programs is not the way to balance the budget. I urge you make them a 
priority in the next farm bill.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
                                                        A
----------------------------------------------------------------------------------------------------------------
Chris Andersen     J. Angell          Sarah Apfel
----------------------------------------------------------------------------------------------------------------
                                                        B
----------------------------------------------------------------------------------------------------------------
Gerritt and        Jason Bard         Nancy Bell         Diane Berl         Anthony Boren      John Brophy
 Elizabeth Baker-
 Smith
----------------------------------------------------------------------------------------------------------------
                                                        C
----------------------------------------------------------------------------------------------------------------
James Caldwell     Jesse Caldwell     Mary A. Carroll    Nancy Chismar      Erin Cleere        Cathy Connell
Linda Courtney
----------------------------------------------------------------------------------------------------------------
                                                      D & E
----------------------------------------------------------------------------------------------------------------
Armin Day          Judith DiNardo     Janet Dingle       Madeline Dixon     Jan Emerson        Thomas and June
                                                                                                Esposito
----------------------------------------------------------------------------------------------------------------
                                                        F
----------------------------------------------------------------------------------------------------------------
Yane Flores        Janey Foust        Forest Frasieur    William Frayer
----------------------------------------------------------------------------------------------------------------
                                                        G
----------------------------------------------------------------------------------------------------------------
MacKenzie Gage     Julia Gebhart      Gina Gentilozzi    Joe Glaston        Marianne Gonta     Lisa Gosnell
Eugene Graham      Krista Grandstaff  Karen Green
----------------------------------------------------------------------------------------------------------------
                                                        H
----------------------------------------------------------------------------------------------------------------
Ryan Hammond       Marie Harper       Bridgette Haste    Rebecca            Douglas Hodge      Patrina Huff
                                                          Hiesterman
----------------------------------------------------------------------------------------------------------------
                                                      J & K
----------------------------------------------------------------------------------------------------------------
Robert Jenks       Melissa Judge      Alex Kading        Mischa Kandinsky   Susan Kirby        James Kirks
----------------------------------------------------------------------------------------------------------------
                                                        L
----------------------------------------------------------------------------------------------------------------
Mercedes Lackey    James Landewee     Angela Lepley      Sammy Low          Keth Luke
----------------------------------------------------------------------------------------------------------------
                                                    M, N & O
----------------------------------------------------------------------------------------------------------------
Suzanne M. Mace    Nick Mantas, Esq.  Jamie McCratic     Robert Mihaly      James Miles        Elizabeth Misner
Matthew Morse      B.E. Murphy        Jean Naples,       Tim Nistler        Margaret O'Connor
                                       M.D., Ph.D.
----------------------------------------------------------------------------------------------------------------
                                                      P & R
----------------------------------------------------------------------------------------------------------------
Elaine             Arlene Pantalone   Kelly Parker       Joan Parrish       Adina Parsley      Patricia Parsons
 Panagopoulos
Amy Perrin         Greg Phillips      Jim Phillips       Tim Powderly       Irene Radke        Mary Rausch
----------------------------------------------------------------------------------------------------------------
                                                        S
----------------------------------------------------------------------------------------------------------------
Tamara Sandberg    Ann Sanders        Karen Schorlemer   Martha Spencer     Carolyn Spier      Jan Sprinkle
Martha Starnes     Dan Stein          Diane Steverson    Ann Stevning-Roe   Sarah Stuckey      Robin Swecker
----------------------------------------------------------------------------------------------------------------
                                                  T, V, W, & Y
----------------------------------------------------------------------------------------------------------------
Peter Tijerina     Ryan Toups         Ruth Valdez        Tina Watkins       Angela Watson      Eric West
Jessica Wheeler    Vilma White        Kathleen Wolfe     Joyce Wollenburg   Karen Woodings     Barbara Yslas
----------------------------------------------------------------------------------------------------------------

    I support my local food bank, and I know they are struggling right 
now to meet the needs of my community. I ask that you pass a strong 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. These programs are a lifeline to the millions of Americans 
struggling with hunger, and I urge you make them a priority in the next 
farm bill.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
                                                        A
----------------------------------------------------------------------------------------------------------------
Cynthia Adams      Tricia Adams       Diana Adelman      Dave Alexander     Janet Alfieri      J. Angell
Cheryl Atkisson
----------------------------------------------------------------------------------------------------------------
                                                        B
----------------------------------------------------------------------------------------------------------------
Joy Barkley        Josh Barnard       Kathryn Barry      Linda Berry        Erica Bettwy       Uphoria Blackham
Todd Blaylock      Bob Bousquet       Jeff Bracken       Georgia            Juliana Brown      Samantha Butler
                                                          Braithwaite
----------------------------------------------------------------------------------------------------------------
                                                        C
----------------------------------------------------------------------------------------------------------------
Patricia Chang     Teresa Conner      Corinne Constable  Jim Conway         Janet Cuthbertr
----------------------------------------------------------------------------------------------------------------
                                                        D
----------------------------------------------------------------------------------------------------------------
Pamela Dahl        Jim Dailey         Angel Dawson       Donna Dennison     Mary Beth Dickey
Bethanne Donovan   Felicity Dorsett   Katherine Dutton
----------------------------------------------------------------------------------------------------------------
                                                        E
----------------------------------------------------------------------------------------------------------------
Wendy Eckert       Belinda Ellerbe    Wendilyn Emrys     Christy Epstein    Walker Everette
----------------------------------------------------------------------------------------------------------------
                                                        F
----------------------------------------------------------------------------------------------------------------
Laurel Facey       Angela Fazzari     Elisabeth          Gabriella          Patricia           Carolyn Friedman
                                       Fiekowsky          Forrester          Frederick
Lisa Fues
----------------------------------------------------------------------------------------------------------------
                                                        G
----------------------------------------------------------------------------------------------------------------
Lynn Galvan        Mr. Ganymede       Lisa Gast          Jaime Gollaz       Katherine Graham   Chuck Graver
Debra Grossberg
----------------------------------------------------------------------------------------------------------------
                                                        H
----------------------------------------------------------------------------------------------------------------
William Haegele    Gabrielle Halko    Larry Hannon       Raleigh Harris     Barbaara Harrison  Beverly Hawkins
Julie Heath        Mary Beth          Christopher        Dorothy Holtzman   Roger Hornaday     Robin Husslage
 Elliott            Heffernan          Heimarck
William Hutchings
----------------------------------------------------------------------------------------------------------------
                                                        J
----------------------------------------------------------------------------------------------------------------
John Jayne         Martha Jean        Donna M.           Carrie Jones
                                       Jitchotvisut
----------------------------------------------------------------------------------------------------------------
                                                        K
----------------------------------------------------------------------------------------------------------------
Kellie Karkanen    Harry Kattner      Mark Kaufman       Jennie Kelly       Mary Nell and Jim  Tom Kozel
                                                                             Kerr
----------------------------------------------------------------------------------------------------------------
                                                        L
----------------------------------------------------------------------------------------------------------------
Mark Lainer        Alex Landis        Mildred Lanin      Karen Lennon       LaDonne Lenzini    Sharon Lewis
Kimberly Locke     Sammy Low          Caroline Luley     Grant Lupher       Nora Lyman
----------------------------------------------------------------------------------------------------------------
                                                        M
----------------------------------------------------------------------------------------------------------------
Michelle Maani     Jim Maguire        V.L. Marez         Zakry Marler       Caryn Martin       Cindy Martinez
Danielle Masek     Cheryl Maveety     Gail McGlone       Tom McKinney       Gin McMillan       Thomas Milliken
Joseph Milne       Kelly Myers
----------------------------------------------------------------------------------------------------------------
                                                      N & O
----------------------------------------------------------------------------------------------------------------
Heather            Mary Neno          Ricki Newman       Jenni Nowak        Terry O'Connell    Karen Ornelas
 Napolitano
----------------------------------------------------------------------------------------------------------------
                                                      P & Q
----------------------------------------------------------------------------------------------------------------
Jessica Park       Adina Parsley      Margaret           Ronald Peterson    Paul Piescik       Arthur Pinkerton
                                       Pellegrini
Julie Pryor        Alicia Quintero
----------------------------------------------------------------------------------------------------------------
                                                        R
----------------------------------------------------------------------------------------------------------------
Leann Ramirez      Barbara Richards   Matt Richmond      Jennie Riley       Christine Roane    Sherri Robertson
Soretta Rodack     Elsa Rush
----------------------------------------------------------------------------------------------------------------
                                                        S
----------------------------------------------------------------------------------------------------------------
Mark Salamon       Terry San Cartier  Ann Sandritter     Jeff Saye          Debra              Judy Schindler
                                                                             Scacciaferro
Anne Seidlitz      Jennifer Sellers   Gerald Shaia       Sharon Shimick     Elliot Silverman   Sally Simpson
Kimberly Slavings  Sally Small        Judith Smith       Marie Snavely      Todd Snyder        Laura Spence
Paula Suter        John Swift
----------------------------------------------------------------------------------------------------------------
                                                 T, V, W, Y & Z
----------------------------------------------------------------------------------------------------------------
Paige Treston      Kristen Van        Kathleen Wagner    Nicole Waldron     Pamela Welsh       Chris West
                    Tassell
Bill Weston        Kimberly Williams  Liana Wong         Lane Yoshiyama     Laura Zambrano     Sheila Zipprich
----------------------------------------------------------------------------------------------------------------

                            agape food bank
    Name: Michael Oberle, Director.
    Comment: I am the Director at the Agape Food Bank in Lakeland, FL. 
With many traditional food streams declining, we continue to find it 
difficult to meet the needs of our community, despite the improvement 
in the economy. We need a strong farm bill to make sure we can put food 
on the table for those that are still struggling. I ask that you pass a 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. These programs are a lifeline to thousands of people struggling 
with hunger in your district, and I urge you to make them a priority in 
the next farm bill.
                   agape house inc. of mountain view
    Name: Tressa Pric, Program Development Director.
    Comment: I am the Program Development Director for the Agape House 
Inc. of Mountain View, shelter for victims of domestic violence. The 
economy has shown some improvement in certain parts of the nation and 
we are very encouraged. However, rural Missouri hasn't had the same 
turn around. We are still struggling with the loss of many jobs as 
factories and mills have been forced to close with no alternatives for 
the citizens the need has increased by a great margin. Here at the 
Agape House Inc. of Mountain View we are seeing an increase for need 
and an increase in the cost for groceries, our budget was cut $48,000 
this year, therefore cutting funding for food in half. We urge you to 
pass a farm bill that protects and strengthens programs like TEFAP, 
SNAP and CSFP. These programs are a lifeline to the many victims of 
domestic violence we serve in a rural 10 county service area, with a 
population ranging over 100,000. People in the 8th congressional 
district are suffering to meet the demands at the grocery stores just 
to feed their families, the shelters also struggle with all the budget 
cuts to meet the needs of the many victims we serve. Please make the 
less fortunate population a priority in the next farm bill.
                         akron-canton foodbank
    Name: Colleen Benson.
    Comment: I work at the Akron-Canton Regional Foodbank which serves 
more than 40,500 people per week in Ohio's congressional districts 13, 
14, 16, 17 and 18 and I am writing to share my concern about hunger in 
Ohio and across the nation.
    We have seen more than a 50% increase in food distribution since 
2007 and our member agencies report no relief at all. Now more than 
ever, our clients are relying on anti-hunger programs like the 
Supplemental Nutrition Assistance Program (SNAP) and The Emergency Food 
Assistance Program (TEFAP), which are authorized in the 2012 Farm Bill
    Congress should do its part by continuing to support hunger-relief 
programs. Given the associated health care and educational costs of 
hunger and poor nutrition, cuts to anti-hunger programs will only 
increase hunger in America.
                     al beech/west side food pantry
    Name: John Casey, President; William Davis, Board Member and 
Volunteer.
    Comment: I am the [fill in the blank] of the Al Beech West Side 
Food Pantry in Kingston, Pa. With traditional food streams declining, 
we continue to find it difficult to meet the needs of our community, 
despite the improvement of the economy. We need a strong farm bill to 
make sure that we can put food on the table of those that are still 
struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, AND CSFP. These programs are a 
lifeline to the people struggling with hunger in your district, and I 
urge you to make them a priority in the next farm bill.
                   alameda county community food bank
    Name: Ecaterina Burton, Advocacy and Education Associate.
    Comment: I work at a Food Bank that feeds 1 in 6 people in my 
county alone. The $36 Billion cut to SNAP is the WRONG direction our 
farm bill is taking. It would take 6 entire Feeding America food bank 
networks to fill that gap. Food Banks are already operating at maximum 
capacity. Making these cuts at this time shows a extreme amount of 
irresponsibility and a calculated decision to ignore the high levels of 
hunger and poverty we have currently in America. Shame on you for 
pretending otherwise!
    Our farm bill should focus on creating economic opportunity and 
improving access to healthy, affordable food for all Americans. I 
recommend that the House Agriculture Committee invest more into SNAP. 
One such way is to include the Hunger-Free Community Incentive Grants 
that were in the Senate's version of the farm bill. This would create 
an average of $20 million per year for a new SNAP local fruit and 
vegetable incentive grant program at farmers markets and other healthy 
food retailers.
    Another way to invest in SNAP is to increase the income levels at 
which people would be eligible. As it stands right now, the U.S. Census 
has stated that 1 in 3 Americans are near poor, barely above the 
poverty line and struggling to survive. We are in the worst economic 
time period since the Great Depression. In the Great Depression, our 
elected officials on both sides of the aisles worked on programs and 
solutions that helped people in that time of great need. Let's do the 
same. This is no time to turn our backs on our fellow Americans.
            Sincerely,
    Ecaterina Burton,
    Advocacy and Education Associate,
    Alameda County Community Food Bank,
    Oakland, CA.
                           arizona food banks
    Name: Ginny Hildebrand.
    Comment: As a constituent and an employee of a food bank 
association that serves more than 1 million hungry Arizonans a year, I 
urge you to pass a strong farm bill that protects programs like SNAP, 
TEFAP, and CSFP, which help provide food for millions of America's most 
vulnerable: children, low income families, seniors, and those who are 
disabled. Please make sure the critical safety net we have in our 
nation stays intact.
    Name: Rebecca Smolic.
    Comment: I and my family depend on the Food Banks in Tucson, AZ. 
Without this help to supplement our very tight food budget, we could 
not eat as healthy as we do. The Food Bank is necessary for us. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
distributed--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families like mine can put food on the table. I ask that you pass a 
farm bill that protects and strengthens programs like SNAP, TEFAP, and 
CSFP. Our community cannot afford cuts to these programs.
    Name: Michael Wahl.
    Comment: I am a supporter of the Community Food Bank, often 
dropping off food in what have become hard times for a lot of low wage 
workers, elderly and unemployed. I am asking you to support a strong 
farm bill that will put food on the table for those in need.
                           arkansas foodbank
    Name: Shelly Lane.
    Comment: I am an employee of the Arkansas Foodbank. Right now, 1 in 
5 adults and 1 in 4 children in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. 
Arkansas cannot afford cuts to these programs.
              ash grove food pantry/the ozark food harvest
    Name: Deanna Monnig, President.
    Comment: As President of the Ash Grove Food Pantry, I am very aware 
of the need just in our area alone. We serve up to 90 families every 
month. Without the help from The Ozark Food Harvest, we would not be 
able to purchase food for our families in need. Please keep those who 
cannot speak for themselves (the children of these families, the 
elderly and the disabled) in mind when you make your decisions 
concerning the farm bill. Thank you, Deanna Monnig, Ash Grove Missouri
                           ashley food pantry
    Name: Judith Rinker, Coordinator.
    Comment: I am the coordinator at Ashley Food Pantry. With 
traditional food streams declining, we continue to find it difficult to 
meet the needs of our community, despite the improvement of the 
economy. We need a strong farm bill to make sure that we can put food 
on the table for those that are still struggling. I ask that you pass a 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. These programs are a lifeline to the [INSERT LOCAL MMG DATA] 
people struggling with hunger in your district, and I urge you make 
them a priority in the next farm bill.
                      atlanta community food bank
    Comments: As an employee for the Atlanta Community Food Bank it is 
imperative that we offer as much assistance to those in need more than 
ever! As I continue to see the vast majority of our community become 
unemployed, and therefore unable to provide food for their families, we 
need to continue the fight to increase the ability to provide 
assistance to those in need.
    Ronald Burns.
    I urge you to preserve current funding levels for the SNAP program. 
The cuts that are being proposed in the farm bill and elsewhere to this 
vital safety net program would have a devastating impact on the nearly 
49.1 million Americans who are food insecure. Even while poverty rates 
nationwide have climbed in recent years, food insecurity rates have 
remained stable precisely because SNAP has responded as it was designed 
to do--to supplement families' food budgets when job losses, medical 
conditions, or low wages make it next to impossible to make ends meet.
    Greg Sims.
    Please do not cut funding for the Supplemental Nutrition Assistance 
Program. As a front line worker that assists Georgia residents on a 
daily basis with accessing SNAP, I see the continued need for full 
funding of this program. People are still hungry and need additional 
help with providing food for their families in order to free up their 
other resources to pay for other household needs such as their housing 
and utilities. The number of children, elderly, and unemployed persons 
that this program assists far exceeds the number of abusers of it.
    Skye Thompson, Vilma Wallace, and Carroll Williams.
    Please do not cut funding to nutrition programs, during this 
economy, where nearly <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="34010474">[email&#160;protected]</a> of all recent graduates cannot find work, 
with shrinking wages and enormous challenges facing working poor and 
unemployed, to cut food programs would be devastating.
    Melinda Wood.
    Billions of dollars in cuts to food stamps would be devastating to 
the vast numbers of Americans who need this assistance to weather the 
storm of job loss or underemployment! Please consider this before 
making a decision to cut resources for those in need.

 
 
 
Angela Clawson     Michael DeCoursey  Tabitha Hollaway   Phillip Holmes     Kim Kurtz          Carol Richburg
 

                       ballard community services
    Name: Eric Myser, Director of Human Services.
    Comment: I am the Director of Human Services at Ballard Community 
Services. I ask that you pass a farm bill that protects and strengthens 
programs like TEFAP, SNAP, and CSFP. These programs are a lifeline to 
the thousands of people struggling with hunger in your district, and I 
urge you to make them a priority in the next farm bill. Charitable 
organizations cannot make up the difference that these government-
funded programs make in the lives of the hungry. Thank you for your 
consideration.
                       blue ridge area food bank
    Comment: With traditional food streams declining, we continue to 
find it difficult to meet the needs of our community, despite the 
improvement of the economy. We need a strong farm bill to ensure that 
we can put food on the table for our struggling neighbors. I ask that 
you pass a farm bill that protects and strengthens programs like TEFAP, 
SNAP, and CSFP. These programs are a lifeline to the 152,000 people 
struggling with hunger in the Blue Ridge region, and I urge you make 
them a priority in the next farm bill.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Nancy Bowman       (Employee)         Ethel Doherty     (Volunteer)
DRichard Dugan     (Volunteer)        Toya Finzel       (Volunteer)
Stevan Resan       (Employee)         Doron Samuel-     (Employee)
                                       Siegel
James Scrivener    (Employee)         Ben Yonkofski     (Employee)
 II
------------------------------------------------------------------------

                               california
    Names: Carl Hansen; Barbara Robertson.
    Comment: Please don't cut emergency food services to the poor 
through SNAP and TEFAP provided through Food Banks. Other sources of 
food are scarce in this economy, and the farm bill's help through the 
USDA has been the ultimate safety net. I volunteer at my local food 
bank and the need has grown significantly over the past few years. It's 
difficult to succeed with increased need and the significant cuts you 
are considering. Don't do it. There is a moral bottom line too. Our 
recipients are either hard working families with low-income jobs and no 
benefits, or children and seniors with little accessibility to healthy 
food. Let's invest in our future by providing the basic building block 
to a successful life--healthy minds and bodies.
                         capital area food bank
    Name: Brett Weisel.
    Comment: I am a supporter of the Capital Area Food Bank. Right now, 
many families in our community are struggling. With increased demand 
for emergency food assistance, high food and gas prices, and declines 
in TEFAP commodities--a major source of the food we distribute--our 
food bank is having difficulty meeting the needs of our community. We 
need a strong farm bill to make sure that struggling families can put 
food on the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.
                    capital area food bank of austin
    Name: Frank R. Deutsch.
    Comment: Please do all possible to see that agencies like the 
Capital Area food bank of Austin get all the help they can by seeing 
that TECAP SNAP AND other programs are passed. Our economy is better 
for a lot of people but the lower income families I see daily looking 
for help are hurting and the food bank is very limited and stretched 
beyond their current resources. We cannot in this great country allow 
our children and their family members continue to go without a meal. 
Thank you, Frank R. Deutsch.
                    capital area food bank of texas
    Comment: With traditional food streams declining, food banks such 
as Capital Area Food Bank of Texas continue to find it difficult to 
meet the needs of our community, despite the improvement of the 
economy. We need a strong farm bill to make sure that we can put food 
on the table for those that are still struggling. I ask that you pass a 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. These programs are a lifeline to the people struggling with 
hunger in Central Texas, and I urge you make them a priority in the 
next farm bill.

 
 
 
James Allen        Heidi Baschnagel   Hanna Morgan       Julie Wickert      Kristina Wolter
 

                     central pennsylvania food bank
    Name: Joe Arthur.
    Comment: I am an employee of Central Pennsylvania Food Bank. Right 
now, many families in our community are struggling. With increased 
demand for emergency food assistance, high food and gas prices, and 
declines in TEFAP commodities--a major source of the food we 
distribute--our food bank is having difficulty meeting the needs of our 
community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
                      central presbyterian church
    Name: Julie Smith, Director of Community Outreach.
    Comment: I am the Director of Community outreach for Central 
Presbyterian Church in Kansas City, MO. With traditional food streams 
declining we continue to find it difficult to meet the needs of our 
community for food. We need a strong nutrition title in the farm bill 
to make sure that we can put food on the table for those who are 
struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These are some 
programs that are a lifeline to the thousands of people struggling with 
hunger in your district, and i urge you to make them a priority in the 
next farm bill.
                        chester county food bank
    Name: Phoebe Kitson.
    Comment: Please DO NOT cut our TEFAP, CSFP and other food funding 
to Chester County and the great Commonwealth of Pennsylvania where 1 in 
8 people go without a meal each day simply because they cannot afford 
to buy healthy food for themselves or their families. We need your 
help! People are hungry in the 6th district and that is unacceptable. 
YOU can make a difference. PLEASE help us feed your people.
                 church of the holy spirit food pantry
    Comment: I am a VOLUNTEER of Church of the Holy Spirit Food Pantry 
in Schaumburg. Right now, many families in our community are 
struggling. With increased demand for emergency food assistance, high 
food and gas prices, and declines in TEFAP commodities--a major source 
of the food that is distributed by food pantries, soup kitchens, and 
shelters--our agency is having difficulty meeting the needs of our 
community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.

 
 
 
Kathleen M. Drennan      LaVerne Horgan           Jill Wood-Naatz
 

                           city union mission
    Name: Greg Dahl, Food Service and Food Warehouse Director.
    Comment: I am the Food Service and Food Warehouse Director at City 
Union Mission. With traditional food streams declining, we continue to 
find it difficult to meet the needs of our community, despite the 
improvement in the economy. We need a strong nutrition title in the 
farm bill to make sure that we can put food on the table for those who 
are still struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These programs are a 
lifeline to the thousands of people struggling with hunger in your 
district, and I urge you to make them a priority in the next farm bill.
                       columbia pacific food bank
    Name: Jenny Ahlers Rudolph.
    Comment: House Agriculture Committee,

    I am writing you today to urge you to fully restore funding for 
farm bill programs that support low-income families. I am currently a 
volunteer board member for the Columbia Pacific Food Bank in Columbia 
County Oregon. We are a community that has been hit hard by the 
recession. The local Boise Cascade mill closed down in early 2009, and 
losses of Timber Payments, as well as layoffs in other sectors, has 
greatly increased the number of families who are coming to the food 
bank. We are seeing many more working families who are struggling to 
make it on one income alone, and may folks who cannot make ends meet 
because of rising fuel and utility costs. With increased demand for 
emergency food assistance, high food and gas prices, and declines in 
TEFAP commodities--a major source of the food we distribute--our food 
bank is having difficulty meeting the needs of our community. We need a 
strong farm bill to make sure that struggling families can put food on 
the table. I ask that you pass a farm bill that protects and 
strengthens SNAP, SNAP-Ed, TEFAP, and CSFP. Our community cannot afford 
additional cuts to these programs.
            Respectfully,
    Jenny Ahlers Rudolph
                         community chest nevada
    Name: Erik Schoen.
    Comment: The proposed cuts to the SNAP program would severely 
impact the lives of many people already living on the edge in Lyon, 
Mineral, and Storey counties. 50% of the recipients of SNAP Benefits in 
Nevada are children and these cuts would significantly harm them and 
their families.
    In years past, nonprofit agencies such as ours did what we could to 
make up the difference. We--and our sister organizations--no longer 
have the capacity to absorb any further cuts to such funding streams. 
This means that already hungry people, many of them neighbors, will go 
hungry and the quality of life for all Nevadans will be detrimentally 
impacted.
    Please do not support these cuts. Instead, we hope that you will 
have the courage to ask for additional funds with which to increase the 
funding for SNAP benefits.
    Thank you.
                community food bank of eastern oklahoma
    Comment: I am a [fill in the blank] of the Community Food Bank of 
Eastern Oklahoma. With traditional food streams declining and a 
recession still lingering, they continue to find it difficult to meet 
the demands for food assistance, despite the overwhelming support from 
our community. We all need a strong farm bill to make sure that we can 
put food on the table for those that are still struggling. I ask that 
you pass a farm bill that protects and strengthens nutrition programs 
like TEFAP and SNAP. These programs provide a lifeline to more than 
600,000 food insecure Oklahomans, including the 240,740 children at 
risk of going to bed hungry tonight. I urge you make them a priority in 
the next farm bill.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Amy Anderson       (Supporter)        Mary & Kenneth    (Supporters)
                                       Beebe
Kathleen Benfield  (Supporter)        Frances Bevel     (Employee)
Pat Bryan          (Supporter)        Amy Cannon        (Employee)
Joanna Chavez      (Supporter)        Mike Clark        (Supporter)
Cynthia Cummins    (Staff)            Rebecca Demas     (Supporter)
J. Eleanor         (Supporter)        Janet M. Dixon    (Supporter)
 Dennison
Mark Fritz         (Supporter)        Tara Harris       (Employee)
Cynthia Helms      (Supporter)        Raine Igarta      (Supporter)
Scott Lewis        (Supporter)        John Mahaffey     (Employee)
Debbie Marouk      (Supporter)        Betsy McClendon   (Supporter)
Ken McGee          (Employee)         Brooks Miriam     (Supporter)
Regana Mouser      (Supporter)        Mary Pelizzoni    (Supporter)
Carol Round        (Supporter)        Darlyn Slater     (Employee)
Keith Stitt        (Supporter)        Debra Stone       (Supporter)
J. Treston         (Supporter)        Michael Vernon    (Employee)
Sally Weiesnbach   (Employee)
------------------------------------------------------------------------

                community food bank of southern arizona
    Comment: I am a [fill in the blank] of the Southern Arizona 
Community Food Bank. I see families each week who are struggling to put 
food on their tables. The need has increased and the resources have 
lessened. It is especially difficult to see how children are affected 
by this problem. I am asking that you pass a farm bill that will 
protect programs like SNAP and TEFAP. Thank you for listening.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Ronny Beard        (Supporter)        Myrna Beards      (Supporter)
Ronald Cohen       (Supporter)        Terry Dennis      (Volunteer)
Rev. George        (Employee)         Lydia Glasson     (Supporter)
 Easley
Mary Goldstein     (Supporter)        Yvonne Guzman     (Supporter)
Donna Hall         (Supporter)        Linda Hampton     (Employee)
Meghan Heddings    (Employee)         Thomas Hull       (Supporter)
Marie P. Kessler,  (Employee)         Dale & Paula      (Supporters)
 J.D.                                  Keyes
Carolyn Nash       (Volunteer)        John Reeves       (Supporter)
Lynda Reeves       (Volunteer)        Steven Snitkin    (Supporter)
Anne Tatum         (Supporter)        Donald Whitney    (Supporter)
Kenneth Wortzel    (Supporter)
------------------------------------------------------------------------

                     community food bank of tucson
    Name: Barbara Arvold.
    Comment: I am a volunteer at the Community Food Bank in Tucson two 
half days a week. I see the numbers of people standing in line, seeking 
food assistance growing weekly! I see the price of food such as peanut 
butter double in price.
    The CFB cannot depend upon the generosity of Tucsonans to meet the 
needs of so many. We need a strong farm bill to make sure that these 
families can put food on their tables.
    Help pass the farm bill to help our community.
    Peace.
                         community food pantry
    Name: Deborah Bluminberg.
    Comment: Every month, I serve hungry families at the Community Food 
Pantry. Many of those families receive food stamps, and still have a 
need for the food pantry. Cutting SNAP means less help for families who 
already are struggling to feed themselves and their children. PLEASE DO 
NOT CUT SNAP.
                    community foodbank of new jersey
    Comment: As a [fill in the blank] at the Community FoodBank of New 
Jersey, I'm writing to share my concern about hunger in New Jersey. 
With unemployment still high and many Americans struggling to make ends 
meet, anti-hunger programs are helping many put food on the table.
    Nearly 50 million Americans live with food insecurity. While food 
banks, churches, and pantries do great work, charity alone can't meet 
the need for food assistance. Feeding our neighbors is a public-private 
partnership. I try to do my part by volunteering at and donating to the 
CFBNJ in Hillside, NJ.
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP), the 
Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP), all of which are authorized in the 
farm bill.
    Cutting anti-hunger programs will obviously increase hunger in 
America. Given the associated health care and educational costs of 
hunger and poor nutrition, cuts to anti-hunger programs are short-
sighted.
    Please remember the families who are struggling in our country and 
urge you to protect and strengthen important anti-hunger programs like 
SNAP, TEFAP, and CSFP in the 2012 Farm Bill reauthorization.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Barbara La Mort    (Volunteer)        Sue Yurasits      (Employee)
------------------------------------------------------------------------

                       community health ministry
    Name: Cindy Cassity, Coordinator.
    Comment: I am the Food Bank Coordinator at Community Health 
Ministry in Alma, KS. With traditional food streams declining, we 
continue to find it difficult to meet the needs of our community, 
despite the improvement in the economy. We need a strong nutrition 
title in the farm bill to make sure that we can put food on the table 
for those who are still struggling. I ask that you pass a farm bill 
that protects and strengthens programs like TEFAP, SNAP, and CSFP. 
These programs are a lifeline to the thousands of people struggling 
with hunger in your district, and I urge you to make them a priority in 
the next farm bill.
                         contra cost food bank
    Name: Patricia Ellison.
    Comment: I volunteer at the Contra Cost Food Bank and I have seen 
how important programs like SNAP are for families and seniors.
    The number of people who would have to skip a daily meal is 
increasing. I urge you to not make cuts in any of the food supplement 
programs in the agriculture bill. Thank you.
                        dutchess outreach, inc.
    Name: Rosemary Fritz Grabowska.
    Comment: I work at Dutchess Outreach, Inc. This is a not-for-profit 
that runs a food pantry and soup kitchen 5 days a week. We serve 
families in need from all over Dutchess County and the sentiment I hear 
the most is that families are having a hard time making ends meet WITH 
the food stamps they're receiving. We serve over 20 families a day in 
our food pantry, giving them groceries so they make what little they 
have stretch just a little bit more. If programs like TEFAP and SNAP 
are decreased we're going to have an increase in demand that we just 
can't keep up with. Please strengthen programs like TEFAP and SNAP!
                          east texas food bank
    Name: Brandi Lamberth.
    Comment: I am a supporter of our local food bank in Tyler. East 
Texas children and families are in the top states for people living in 
poverty. We need a strong farm bill to help put food on the table for 
vulnerable children, seniors, and low-income families. Please pass a 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. Cutting these programs is not the way to balance the budget. I 
urge you make them a priority in the next farm bill.
                        emergency food cupboard
    Name: Robert Lauterbach.
    Comment: Please do not cut the funds for SNAP, as it would cause 
great hardships for people in need of food. As a volunteer coordinator 
for an Emergency Food Cupboard near Downtown Rochester, NY, I see first 
had how important SNAP funds are for our clients. Most of them run out 
of the funds mid-way through the month, and need our services to feed 
their families.
                       emergency infant services
    Name: Tom Taylor, Executive Director.
    Comment: I am the Executive Director at Emergency Infant Services, 
which serves infants and kids ages 0 thru their 5th birthday. With 
traditional food streams declining and a recession still lingering, we 
continue to find it difficult to meet the demands for food assistance, 
despite the overwhelming support from our community. We need a strong 
FARM Bill to make sure that we can put food on the table for those that 
are still struggling. I ask that you pass a FARM Bill that protects and 
strengthens nutrition programs like TEFAP and SNAP. These programs 
provide a lifeline to more than 600,000 food insecure Oklahomans, 
including 240,740 children at risk of going to bed hungry tonight. I 
urge you to make them a priority in the next FARM Bill.
               fayette county community action food bank
    Name: Jennifer Miller.
    Comment: I am a supporter of Fayette County Community Action Food 
Bank. Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
           feeding america and st. mary's food bank alliance
    Name: Lee Wasko.
    Comment: I am a supporter of Feeding America and St. Mary's Food 
Bank Alliance. Despite the recent improvement of the economy, there are 
still many people who may not know where they will find their next 
meal. We need a strong farm bill to help put food on the table for 
vulnerable children, seniors, and low-income families. Please pass a 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. Cutting these programs is not the way to balance the budget. I 
urge you make them a priority in the next farm bill.
                   feeding america southwest virginia
    Name: Wayne Johnson.
    Comment: Our clients are in dire need of food and we depend heavily 
on the USDA food provided to us thru Feeding America Southwest 
Virginia. Please help us as we seek to feed the needy in this area.
    Name: James Pearman, Board Chair.
    Comment: I am the Board Chair at Feeding America Southwest 
Virginia. I have been involved as a volunteer Board member for almost 
20 years. Our service area is southwestern Virginia (26 counties, 10 
cities) and contains some of the poorest areas of the Commonwealth. 
Food supply has always been a challenge for us as we do not have 
significant food production or manufacturing in our service area. With 
continuing decline in traditional food streams, we continue to find it 
difficult to meet the needs of our communities, despite the improvement 
of the economy. We need a strong farm bill to make sure we can put food 
on the table of those individuals still struggling. I ask that you pass 
a farm bill that protects and strengthens programs like TEFAP, SNAP, 
and CSFP. These programs are a lifeline to the thousands of children 
and older adults struggling with hunger in southwestern Virginia. I 
urge you to make them a priority in the next farm bill.
         feeding america/ri community foodbank/genesis project
    Name: Ken Stec.
    Comment: I am a supporter of Feeding America and my local food 
bank. Despite the recent improvement of the economy, there are still 
many people who may not know where their next meal will come from. 1 in 
5 children do not know where their next meal will come from in this 
country--as the richest country in the world, we should be ashamed! We 
need a strong farm bill to help put food on the table for vulnerable 
children, seniors, and low-income families. Please pass a farm bill 
that protects and strengthens programs like TEFAP, SNAP, and CSFP--AND 
supports access to fresh, nutritious food. Cutting these programs is 
not the way to balance the budget. A thriving economy needs well-
nourished citizens at all income-levels, and I urge you make these 
programs a priority in the next farm bill.
                         feeding our neighbors
    Name: Lori Kantor.
    Comment: Feeding Our Neighbors is a public-private partnership. I 
am doing my part and want our government to do its part.
    Cutting anti-hunger programs will increase hunger in America, as 
well as the associated health care, educational, and economic costs of 
food insecurity and poor nutrition.
    Please remember the families who are struggling in our community 
and protect and strengthen important anti-hunger programs like TEFAP, 
SNAP, and CSFP in the 2012 Farm Bill reauthorization.
              food bank at prince of peace lutheran church
    Name: Sharleen Jespersen.
    Comment: I am a supporter and volunteer at the Food Bank at Prince 
of Peace Lutheran Church. Please keep a strong farm bill and protect 
the benefits of these people who really need our help right now to feed 
their families.
                  food bank of contra costa and solano
    Comment: As a [fill in the blank] of my local food bank, I am 
writing to share my concern about hunger in California and the country. 
With unemployment still high and many Americans still struggling to 
make ends meet, anti-hunger programs are vital to many of our neighbors 
just put food on the table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance. 
Feeding our neighbors is a public-private partnership. I try to do my 
part by supporting the Food Bank of Contra Costa and Solano.
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP) and 
The Emergency Food Assistance Program (TEFAP), which are authorized in 
the farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted. Don't cut 
these programs--if you are looking for ways to reduce government 
spending, then cut the farm subsidies to the growers. A truly wasteful 
program.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP and SNAP in the 2012 Farm Bill reauthorization.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Gil Berkeley       (Supporter)        Rachel Braver     (Supporter)
Sarah Hafer        (Supporter)        Bruce Phelps      (Employee)
Lisa Sherrill      (Employee)
------------------------------------------------------------------------

                           food bank of iowa
    Name: Carey Miller, Executive Director.
    Comment: I am Carey Miller, Executive Director of the Food Bank of 
Iowa. Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs. Thank you.
                      food bank of northern nevada
    Comment: I am a [fill in the blank] of the Food Bank of Northern 
Nevada. Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Rosemary Beard     (Supporter)        Carole Ennis      (Supporter)
Cherie Jamason     (Supporter)        Jocelyn Lantrip   (Employee)
Cheryl Le          (Supporter)
------------------------------------------------------------------------

                     food bank of northwest indiana
    Comment: I am a [fill in the blank] for the Food Bank of Northwest 
Indiana. Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Marshal Anderson   (Volunteer)        Sue Helm          (Supporter)
DeLynn Hodges      (Supporter)        D. Holland        (Supporter)
Debbie Kardos      (Supporter)        Pastor Lonnie     (Supporter)
                                       Lawson
Amanda Maynard     (Employee)         LuAnn Parrish     (Supporter)
Jean Proctor       (Supporter)        Rose Mary         (Employee)
                                       Salazar
Megan Sikes        (Employee)         Margaret Sinde    (Supporter)
Chandra            (Employee)
 Timberlake
------------------------------------------------------------------------

                  food bank of south central michigan
    Comment: I am an [fill in the blank] representing the Food Bank of 
South Central Michigan. With traditional food streams declining, the 
Food Bank continues to find it difficult to meet the needs of our 
community, despite the improvement of the economy. We need a strong 
farm bill to make sure that we can put food on the table for those that 
are still struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These programs are a 
lifeline to the 1,828,060 Michigan residents who struggle with hunger 
and I urge you make them a priority in the next farm bill. 25% of the 
102,600 individuals receiving food through the Food Bank of South 
Central Michigan are older Americans and senior citizens.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Sandra Dobbins     (Donor)            Douglas Ivey      (Supporter)
Dan Salerno        (Supporter)
------------------------------------------------------------------------

                       food bank of south jersey
    Comment: I am an [fill in the blank] of the Food Bank of South 
Jersey. Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
    All of us count on your support for the people of South Jersey.
    Thank you

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Susan Croll        (Supporter)        Ujwala Samant     (Employee)
------------------------------------------------------------------------

                food bank of the southern tier community
    Name: Missy Goetschius.
    Comment: While we appreciate your recognition of the need for 
additional TEFAP supplies across the country, more help is needed this 
year so the Food Bank of the Southern Tier can continue responding to 
the increasing need for food assistance. Our local Food Bank is 
currently feeding over 11,000 people each week and the need for food 
assistance continues to grow.
    We appreciate your attention to this request and look forward to 
hearing from you regarding this issue.
    Comment: I am a [fill in the blank] at the [fill in the blank], 
which is a hunger-relief member agency of the Food Bank of the Southern 
Tier. Right now, many families in our community are struggling. In 
fact, the Food Bank of the Southern Tier's hunger-relief network, of 
more than 160 hunger-relief member agencies including food pantries, 
soup kitchens, shelters and other nonprofit organizations, provide 
assistance to over 11,000 individuals each week.
    With high and prolonged unemployment and many more families 
scraping by on one salary or reduced hours and wages, many families in 
our community are still hurting and the Food Bank is having difficulty 
meeting the needs of our community. We need a strong farm bill to make 
sure that struggling families can put food on the table.
    I ask that you pass a farm bill that protects and strengthens 
programs like SNAP and TEFAP. Our community cannot afford cuts to these 
programs!

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Arelia Gamble            (Volunteer)              Corning Community Food
                                                   Pantry
Beth                     (Volunteer)              Corning Community Food
                                                   Pantry
Donna Bernhardt          (Volunteer)              Groton Food Providers
                                                   Food Pantry
Joan Zhe                 (Volunteer)              Groton Food Providers
                                                   Food Pantry
Edward Baldwin           (Volunteer)              New Beginnings Food
                                                   Pantry
Verna Baldwin            (Volunteer)              New Beginnings Food
                                                   Pantry
James Freeman            (Volunteer)              New Beginnings Food
                                                   Pantry
Barbara Peterson         (Volunteer)              New Beginnings Food
                                                   Pantry
Mary Rich                (Volunteer)              New Beginnings Food
                                                   Pantry
Dolores Kauffman         (Volunteer)              Penn Ave United
                                                   Methodist Church Food
                                                   Pantry
Frederick Buchholz, Jr.  (Volunteer)              Riverside Food Pantry
Nancy Burton             (Volunteer)              Tuscarora and Addison
                                                   Food Pantries
Kathy Greene             (Volunteer)              Tuscarora and Addison
                                                   Food Pantries
Shirley Harris           (Volunteer)              Tuscarora and Addison
                                                   Food Pantries
------------------------------------------------------------------------

                     food bank of western new york
    Name: Kathleen Mendez.
    Comment: I am an employee of the Food Bank of Western New York and 
am aware of that fact that many families in our community are 
struggling to put food on the table. There is an increased demand for 
emergency food assistance, due to increased food costs. A decline in 
TEFAP commodities--a major source of the food we distribute--results in 
our food bank having difficulty meeting the needs of our four-county 
community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. The 
less fortunate in Western New York cannot afford cuts to these 
programs.
                             food cupboard
    Name: Fran Jensen.
    Comment: I help run a Food Cupboard and assist at several soup 
kitchens. The situation out here is very difficult for many people. 
SNAP and TEFAP are essential. It may sound incredible in this nation, 
but people could starve without some of these benefits. Please preserve 
these programs!
                        food for friends program
    Name: Lauralee Colella.
    Comment: I am a volunteer for the Food For Friends program in 
Plainville Ct. and we benefit from TEFAP and really need this kind of 
help to make this program possible. We are serving needy people every 
week and see more need each week. We need a strong farm bill to make 
sure that struggling families can have the hot meals we provide. Our 
community cannot afford cuts to these programs.
                               food roots
    Name: Randall Koch.
    Comment: I work with Food Roots, a 501(c)3 teaching children to 
grow food in their schools with the help of FoodCorps and create micro 
enterprise programs for small farmers to help them fund their food 
production as well as work regionally to develop a 100 mile regional 
food system for production and distribution of healthy for all income 
levels through Farmers Markets and SNAP match programs.
                        food share in oxnard, ca
    Name: Fran McNeill, Chief Program Officer.
    Comment: I am the Chief Program Officer at FOOD Share in Oxnard, 
CA. With traditional food streams declining, we continue to find it 
difficult to meet the needs of our community, despite the improvement 
of the economy. We need a strong farm bill to make sure that we can put 
food on the table for those that are still struggling. I ask that you 
pass a farm bill that protects and strengthens programs like TEFAP, 
SNAP, and CSFP. These programs are a lifeline to one in six people 
struggling with hunger in your district, and I urge you make them a 
priority in the next farm bill. These critical programs affect the most 
vulnerable of our population. One in four of those who are hungry are 
children, and they are our future.
                                foodlink
    Comment: I am an [fill in the blank] of Foodlink, the regional food 
bank in Rochester, NY. Right now, many families in our community are 
struggling. With increased demand for emergency food assistance, high 
food and gas prices, and declines in TEFAP commodities--a major source 
of the food we distribute--our food bank is having difficulty meeting 
the needs of our community. We need a strong farm bill to make sure 
that struggling families can put food on the table. I ask that you pass 
a farm bill that protects and strengthens programs like SNAP, TEFAP, 
and CSFP. Our community cannot afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Martha Brown       (Employee)         Michelle Larson   (Supporter)
------------------------------------------------------------------------

                               foodshare
    Comment: I am a [fill in the blank] of FOODSHARE. Right now, many 
families in our community are struggling. With increased demand for 
emergency food assistance, high food and gas prices, and declines in 
TEFAP commodities--a major source of the food we distribute--our food 
bank is having difficulty meeting the needs of our community. We need a 
strong farm bill to make sure that struggling families can put food on 
the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Emily Chenette     (Supporter)        Kai Loundon       (Employee)
Patricia Maden     (Volunteer)        Leslie Soler      (Employee)
------------------------------------------------------------------------

                        foodshare in bloomfield
    Comment: am a [fill in the blank] at the [fill in the blank] food 
pantry working with Foodshare in Bloomfield to help the hungry in our 
town. Please pass a strong farm bill that will allow us to continue to 
feed the hungry in CT. SNAP, CFSP and TEFAP programs provide needed 
nutrition in the fight against hunger. Without these programs my 
neighbors will go hungry. Please do not vote to cut these necessary 
programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Janet Colturi      (Employee)         Cristina Ramsay   (Supporter)
------------------------------------------------------------------------

              foodshare, hartford and tolland counties, ct
    Comment: I am [fill in the blank] of FoodShare, Inc. of Hartford, 
Connecticut a food bank serving Hartford and Tolland counties of the 
State of Connecticut. With traditional food streams declining, we 
continue to find it difficult to meet the needs of our community, 
despite the improvement of the economy. We need a strong farm bill to 
make sure that we can put food on the table for those that are still 
struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These programs are a 
lifeline to the residents of Hartford and Tolland counties of the State 
of Connecticut who are struggling with hunger, and I urge you make them 
a priority in the next farm bill.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Mark La Fontaine   (Employee)         Janice Traczyk    (Employee)
------------------------------------------------------------------------

                               free lunch
    Name: Leslie Weinberg.
    Comment: I care deeply about the issue of poverty and hunger, here 
in the U.S. as well as overseas. In these difficult times, many depend 
on the SNAP program, WIC, or Food Banks and Pantries. I participate in 
a Free Lunch in Stamford, CT. Please include these nutrition programs, 
as well as free lunches in public schools for those who qualify. Many 
Food Banks and Pantries are significantly strained. People who could 
once make donations are now clients.
                     georgia food bank association
    Name: Danah Craft.
    Comment: Please protect TEFAP and Federal Nutrition Programs like 
SNAP. Food Banks in GA distributed more than 95 million pounds of food 
last year through more than 2,500 partner agencies and pantries. 
Without these programs, our agencies, including 1,700 churches and 
congregations, will be on the front lines of trying to help struggling 
Georgians. Now is not the time to cut food assistance.
                  gloria dei food distribution center
    Name: Joel Weinhardt, Pantry Manager.
    Comment: I am a Pantry Manager of Gloria Dei Food Distribution 
Center in Leesburg. Right now, many families in our community are 
struggling. With increased demand for emergency food assistance, high 
food and gas prices, and declines in TEFAP commodities--a major source 
of the food we distribute--our food bank is having difficulty meeting 
the needs of our community. We need a strong farm bill to make sure 
that struggling families can put food on the table. I ask that you pass 
a farm bill that protects and strengthens programs like SNAP, TEFAP, 
and CSFP. Our community cannot afford cuts to these programs. We 
started from scratch a little over a year ago and are now giving 145 
people 1 week of nutritional food 1 time per month. Without the 2nd 
harvest TEFAP foods we receive we would not be able to feed more than 
30-40 people. Joel Weinhardt, Manager Pro Tem Gloria Dei Food 
Distribution Center
                        good shepherd food bank
    Comment: I am [fill in the blank] at Good Shepherd Food Bank. With 
traditional food streams declining, we continue to find it difficult to 
meet the hunger needs in Maine, despite the improving economy. We need 
a strong farm bill to make sure that we can put food on that table for 
those that are still struggling. I ask that you pass a farm bill that 
protects and strengthens programs like TEFAP, SNAP, and CSFP. These 
programs are a lifeline to the more than 200,000 Mainers who struggle 
with hunger. I urge you to make them a priority in the next farm bill. 
Sincerely,

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Christine Force    (Employee)         Nicole Nadeau     (Employee)
------------------------------------------------------------------------

                    grace umc food pantry in manvel
    Name: Nancy Marsac.
    Comment: I urge you to prioritize full funding of farm bill 
nutrition programs. Try as we may, those of us in food pantries can't 
keep up with the need.
    I am a Constituent, and I vote. (Although I have been in the 14th 
CD, I just voted in the 22nd, as we have been redistricted.)
 great commission community ministry, inc., house of manna food pantry
    Name: Henrietta Sailor.
    Comment: I am a supporter of the Great Commission Community 
Ministry, Inc., House of Manna Food Pantry, serving the Greater 
Hartford, CT area. Many families in our community are struggling and 
with increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities, a major source of food we 
distribute, our organization is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs. Thank you
                         greater hartford area
    Comment: I am a [fill in the blank] of [fill in the blank], serving 
the Greater Hartford, CT area. Right now, many families in our 
community are struggling. With increased demand for emergency food 
assistance, high food and gas prices, and declines in TEFAP 
commodities--a major source of the food we distribute--our organization 
is having difficulty meeting the needs of our community. We need a 
strong farm bill to make sure that struggling families can put food on 
the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Max Castro         (Supporter)        Jaren Morrison    (Supporter)
------------------------------------------------------------------------

                 greater pittsburgh community food bank
    Comment: I am the [fill in the blank] at Greater Pittsburgh 
Community Food Bank. With traditional food donations declining, along 
with an increase in demand of services, we continue to find it 
difficult to meet the needs of our community, despite the improvement 
of the economy. We need a strong farm bill to make sure that we can put 
food on the table for those that are still struggling. I ask that you 
pass a farm bill that protects and strengthens programs like TEFAP, 
SNAP, and CSFP. These programs are a lifeline to the 158,670 people 
struggling with hunger in Allegheny County, Pennsylvania and I urge you 
make them a priority in the next farm bill. Thank you for your 
consideration.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Rachel Schneider   (Employee)         Chris West        (Employee)
------------------------------------------------------------------------

                           hands on hartford
    Name: Cody Stewart.
    Comment: I am an employee of Hands on Hartford, serving the Greater 
Hartford, CT area. Right now, many families in our community are 
struggling. With increased demand for emergency food assistance, high 
food and gas prices, and declines in TEFAP commodities--a major source 
of the food we distribute--our organization is having difficulty 
meeting the needs of our community. We need a strong farm bill to make 
sure that struggling families can put food on the table. I ask that you 
pass a farm bill that protects and strengthens programs like SNAP, 
TEFAP, and CSFP. Our community cannot afford cuts to these programs.
              harry chapin food bank of southwest florida
    Name: Ben Walther.
    Comment: I am a SUPPORTER of Harry Chapin Food Bank of Southwest 
Florida. Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
                      helping hands food ministry
    Name: Tami Hernandez, Director.
    Comment: I am the Director at Helping Hands Food Ministry. With 
traditional food streams declining, we continue to find it difficult to 
meet the needs of our community, despite the improvement in the 
economy. We need a strong nutrition title in the farm bill to make sure 
that we can put food on the table for those who are still struggling. I 
ask that you pass a farm bill that protects and strengthens programs 
like TEFAP, SNAP, and CSFP. These programs are a lifeline to the 
thousands of people struggling with hunger in your district, and I urge 
you to make them a priority in the next farm bill.
                        hot springs food pantry
    Name: Deb Meyers, VP of the Board of Directors.
    Comment: I am the VP of the Board of Directors of the Hot Springs 
Food Pantry. I see less and less food coming into our pantry from our 
Network. Many of our ranches, townsfolk, and even relatives from out of 
state help keep our shelves full, but none of them are wealthy. They 
will not be able to do this forever. We are seeing increases every 
month in our roles. This town of about 450 has 180 people who need food 
each month. As you can see, we are desperate for funding. Many of our 
clients are elderly and are seeing less money in their social security 
checks. Many more are either embarrassed to be seen coming in for food 
or they are disabled and for whatever reason don't ask us to deliver to 
them, which is something we are eager to do.
    Add those to the ones already on the roles and you can see our 
position. Please, please, please, if you won't help get the funding 
back, which was already cut, at least stop any further cuts.
                       house of hope food pantry
    Name: Everett Bass.
    Comment: I am a Volunteer employee of House of Hope Food Pantry. 
Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
    Leesburg First Assembly of God,
    Fruitland Park, FL
                         housing opportunities
    Name: Caroline Shook.
    Comment: I am an employee of Housing Opportunities. We run a food 
pantry which relays on TEFAP commodities for our pantry. Our pantry 
serves over 1500 families a month. Right now, many families in our 
community are struggling. With increased demand for emergency food 
assistance, high food and gas prices, and declines in TEFAP 
commodities--a major source of the food we distribute--our food bank is 
having difficulty meeting the needs of our community. We need a strong 
farm bill to make sure that struggling families can put food on the 
table. I ask that you pass a farm bill that protects and strengthens 
programs like SNAP, TEFAP, and CSFP. Our community cannot afford cuts 
to these programs.
                           houston food bank
    Name: Timothy Williams.
    Comment: I urge you to oppose proposals to cap or reduce funding, 
restrict eligibility, or reduce nutrition program benefits
    Please support increased benefits to ensure American families have 
resources to purchase a nutritionally adequate diet;
    I am a supporter of Feeding America and the Houston Food Bank. In 
spite of recent economic improvements, there are too many families who 
do not know where there next meal will come from. We need a strong farm 
bill to help put food on the table for children, the elderly and low-
income families. Cutting these programs is not the way to balance the 
budget.
    I urge you to prioritize full funding of farm bill nutrition 
programs.
    I am a Constituent, and I vote.
                        hunger-free pennsylvania
    Name: Sheila Christopher, Executive Director.
    Comment: I am the Executive Director of Hunger-Free Pennsylvania. 
With traditional food streams declining, we continue to find it 
difficult to meet the needs of our community, despite the improvement 
of the economy. We need a strong farm bill to make sure that we can put 
food on the table for those that are still struggling. I ask that you 
pass a farm bill that protects and strengthens programs like TEFAP, 
SNAP, and CSFP. Of particular interest to us is the reauthorization of 
the Commodity Supplemental Food Program [CSFP]. In Pennsylvania we 
provide a vital nutritious food package to 34,533 each month. We were 
blessed in 2002 to be awarded the program with a caseload of 5,000. We 
are celebrating 10 years of administering this program for the 
Pennsylvania Department of Agriculture, with over 300,000 seniors 
eligible for this program our work is far from done
    CSFP, along with the other food/nutrition programs are a lifeline 
to the people struggling with hunger in your district, and I urge you 
make them a priority in the next farm bill.
                          illinois food banks
    Comment: As a volunteer for our local food pantry, I know many of 
our clients rely on food stamps as well as on the pantry for their 
food. Please don't cut SNAP! I am writing to encourage strong support 
of nutritional programs nationwide. Members of my family currently 
depend on food subsidies to make ends meet. As a food pantry volunteer, 
I see the face of needy people regularly. We feed hundreds of people 
each week through our community food pantry. Please do not cut SNAP 
funding. Our neighbors are hungry and need our support and care.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
William Drennan    (Supporter)        Julie R. Harley   (Employee)
Kenneth Hooker     (Volunteer)        Nana Pearlman     (Volunteer)
Karen Stelmach     (Employee)         Phyllis Voosen    (Volunteer)
Sally Wallace      (Employee)         Mabel Wayne       (Supporter)
Marguerite Wood    (Volunteer)
------------------------------------------------------------------------

                           indiana food bank
    Name: Mallie Gwathney.
    Comment: I serve as a food pantry director and I see the need in 
our community for the food that is supplied by the services that are 
provided through the USDA food distributions. If these services are cut 
it will cause hardships for many families.
  jewish family & children's service of pittsburgh/squirrel hill food 
                                 pantry
    Name: Rebecca Abrams, Director.
    Comment: I urge Congress to protect against hunger and promote 
nutrition in the upcoming farm bill by supporting programs like SNAP, 
TEFAP, CSFP, and FFVP.
    As the director of the Squirrel Hill Food Pantry in Pittsburgh, PA 
I serve over 1,200 people each year with supplemental food assistance. 
Please don't cut these vital programs to provide healthy foods to 
people in need. If these cuts go forward, I worry that my program will 
not be able to keep pace with the number of people who will turn to my 
food pantry program for help.
    Thank you,
    Rebecca Abrams, M.S.W.,
    Director, Squirrel Hill Community Food Pantry,
    A program of Jewish Family & Children's Service of Pittsburgh.
                          jonnycake food bank
    Name: Gene Corl.
    Comment: I am a supporter of the Jonnycake Food Bank in our 
community. Right now, many families in our community are struggling. 
With increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
    The kids are the ones who are adversely affected the most, and that 
is a sad state of affairs for America.
                  lady lake church of god food pantry
    Name: James Newton.
    Comment: I am an EMPLOYEE of Lady Lake Church of GOD Food Pantry. 
Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
                         marillac social center
    Name: Whitney Allen, Director of Family Services.
    Comment: I am the Director of Family Services at Marillac Social 
Center. Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
that is distributed by food pantries, soup kitchens, and shelters--our 
agency is having difficulty meeting the needs of our community. We need 
a strong farm bill to make sure that struggling families can put food 
on the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.
                                maryland
    Name: Antje Krueger.
    Comment: I support my local food bank, and I know they are 
struggling right now to meet the needs of my community. I ask that you 
pass a strong farm bill that protects and strengthens programs like 
TEFAP, SNAP, and CSFP. These programs are a lifeline to the millions of 
Americans struggling with hunger, and I urge you make them a priority 
in the next farm bill.
                          mid-south food bank
    Name: Barbara Southwell.
    Comment: Do Not pass Any bill which weakens our ability to provide 
food for those who are children, elderly, underemployed, disabled, etc. 
My husband and I are volunteers in our community and so far we have 
raised 1,969 pounds of food and $1,261.25 for the Mid-South Food Bank 
and that's not a dent in what is needed in this area! Don't make it any 
more difficult than it already is for us to help feed those in need! I 
swear I think our elected officials are so clueless!
    Name: Marcia Wells.
    Comment: Food insecurity in our area is more than 20% of the 
population. With increased demand for emergency food assistance, high 
food and gas prices, and declines in TEFAP commodities, our food bank 
is struggling to feed the need in our community. We need a strong farm 
bill to make sure that individuals and families can put food on the 
table. I ask that you pass a farm bill that protects and strengthens 
programs like SNAP, TEFAP, and CSFP. Memphis and the Mid-South cannot 
afford cuts to these programs.
                               minnesota
    Name: Maryann Bartos.
    Comment: I work with the homeless. The drop of farm surplus to the 
local food banks is not good. The need has increased in these hard 
economic times. The program needs to continue. It looks like a win/win 
situation for our citizens producer or not.
    Name: Deb Aries
    Comment: PLEASE continue to protect & strengthen the food programs 
for the hungry. Our numbers are up & there is no end in sight for the 
continued use of our facilities. We serve 13 counties in SE Minnesota & 
though we are blessed with wonderful donors, we do have shortages at 
certain times of the year.
    Comment: Dear Representative McCollum:

    I work as a Social Worker in [fill in the blank] and strongly urge 
you to support existing funding levels for the Supplemental Nutrition 
Assistance Program (SNAP) within the farm bill.
    One in 9 Minnesota citizens struggles to put food on the table. In 
Ramsey County, at least 12.6 percent of the population is food 
insecure. SNAP is critical to maintaining good nutrition and health 
among our population.
    Economic studies in Minnesota show that people who lack access to 
adequate nutrition are more often chronically ill; children don't fully 
develop physically and cognitively and are more prone to fail courses, 
repeat grades and drop out of school before graduation. The cost of 
hunger's impact--largely as uninsured medical care--is conservatively 
estimated at $1.6 billion annually. Cutting SNAP or limiting access to 
it will increase charity care caseloads for the counties, which will be 
borne by local property taxes.
    Last but not least, every dollar of SNAP purchases goes into the 
local economy and generates $1.73 in economic activity. This is not a 
net expense; it is a net gain of 73% that supports jobs on Main Street. 
In a time of high unemployment, we cannot afford to add to the 
unemployed by reducing community economic assets of which SNAP is one.
    As a constituent and as a public servant, I strongly oppose cuts to 
critical anti-hunger programs SNAP, TEFAP as well as the Commodity 
Supplemental Food Program (CSFP) for seniors and Women, Infants and 
Children (WIC)
    For the sake of our neighbors who can't earn enough to get the food 
they need, it is important to maintain funding for programs that 
provide basic food assistance programs.
            Sincerely,

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Lynnete Medcalf,   Ramsey County      Ellen Morrow,     Blue Earth
 L.S.W.                                L.S.W.            County
------------------------------------------------------------------------

                                missouri
    Name: Amanda Winschel.
    Comment: With traditional food streams declining, we continue to 
find it difficult to meet the needs of our community, despite the 
improvement of the economy. We need a strong farm bill to make sure 
that we can put food on the table for those that are still struggling. 
I ask that you pass a farm bill that protects and strengthens programs 
like TEFAP, SNAP, and CSFP. These programs are a lifeline to the 70,000 
people struggling with hunger in your district, and I urge you make 
them a priority in the next farm bill.
    Name: Jan Wright.
    Comment: Running the local food pantry keeps me constantly aware of 
how much we need the gov't. commodities program for our seniors CSFP, 
reg commodities. and our SNAP programs. Food pantries alone cannot 
handle this. Last month alone this little food pantry fed 206 people. 
The economy is improving but not to the point you can do away with 
these programs.
                       montgomery area food bank
    Name: Teressa Vigneault.
    Comment: Dear House Committee Members:

    It is critical that we not make the suggested cuts to TEFAP, SNAP, 
USDA. These programs ensure that food banks and others are able to 
assist those that need it most with simple nutrition and having access 
to much needed food. No one should have to go hungry, Children should 
be able to grow mentally, physically and spiritually.
                        new hampshire food bank
    Name: Mel Gosselin.
    Comment: Although we are seeing slight improvements in the economy, 
we are seeing greater demand for food assistance. A strong farm bill is 
imperative to assisting with the needs of our most vulnerable. These 
assistance programs are critical; please make them a priority. Thank 
you.
                               new mexico
    Comment: As a supporter of my local food bank, I am writing to 
share my concern about hunger in New Mexico. With unemployment still 
high and many Americans still struggling to make ends meet, anti-hunger 
programs are helping many of our neighbors just put food on the table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance. 
Feeding our neighbors is a public-private partnership. I try to do my 
part by supporting local hunger relief programs in my community.
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP), The 
Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP), all of which are authorized in the 
farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization. Cutting anti-hunger programs will increase hunger in 
America. Given the associated health care and educational costs of 
hunger and poor nutrition, cuts to anti-hunger programs are short-
sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization.

 
 
 
Michael Bennett          Louise Bradley           Brad Brown
Cathy Brown              Rebecca Burwinkle        Leann Buss
Joyce Campbell-Layman    Eileen Cook              Bishop David Cooper
Dale Dannhaus            Ron EppesBlake Farley    ......................
Art Fine                 Char'let Garcia          Robin Garcia
Chrisann Gray            Rumaldo J. Griego        Jennifer Hollis
John Laude               Diana Martinez           Lori Medina
Robin Prudencio          Ken Reno                 Jason Riggs
Karen Smoot              Linda Wedeen             Kim Wheeler
Marrianne White          Ruth Williams
 

                                new york
    Comment: As a [fill in the blank] of my local food bank, I am 
writing to share my concern about hunger in New York. With unemployment 
still high and many Americans still struggling to make ends meet, anti-
hunger programs are helping many of our neighbors just put food on the 
table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance. 
Feeding our neighbors is a public-private partnership.
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP), The 
Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP), all of which are authorized in the 
farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Kathleen Keske     (Supporter)        Larkin Kimmerer   (Employee)
Chuck Schwartz     (Supporter)        Jeremy Schwartz   (Supporter)
Jill Schwartz      (Supporter)        Lauren Tonti      (Supporter)
Sandra Trujillo    (Supporter)
------------------------------------------------------------------------

                      north park friendship center
    Name: John Potamites.
    Comment: I do volunteer work at the North Park Friendship Center. 
Whenever asked, I tell people that to learn how the people who need us 
are affected by present American economics that they should come and 
work with me for a week. I could list all the various hardships I see, 
but more would be learned if ``you see for yourself.'' Please don't 
help them less.
                         north texas food bank
    Name: Damaris Lawson, Agency Relations Specialist.
    Comment: I am an Agency Relations Specialist at North Texas Food 
Bank. With traditional food streams declining, we continue to find it 
difficult to meet the needs of our community, despite the improvement 
of the economy. We need a strong farm bill to make sure that we can put 
food on the table for those that are still struggling. I ask that you 
pass a farm bill that protects and strengthens programs like TEFAP, 
SNAP, and CSFP. These programs are a lifeline to people struggling with 
hunger in your district, and I urge you to make them a priority in the 
next farm bill.
                       northborough massachusetts
    Name: Sarah Rothery, Director.
    Comment: As a director of my local food bank in Northborough 
Massachusetts, I am writing to share my concern about hunger in 
Massachusetts. With unemployment still high and many Americans still 
struggling to make ends meet, anti-hunger programs are helping many of 
our neighbors put food on the table.
    Nearly 50 million Americans are living at-risk of hunger. While 
food banks and food pantries are doing great work in our community, 
charity alone cannot meet the need for food assistance. Feeding our 
neighbors is a public-private partnership. I do my part by contributing 
resources such as food, funds and volunteer time to the Worcester 
County Food Bank in Shrewsbury, MA.
    Congress can do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP Food 
Stamps) and The Emergency Food Assistance Program (TEFAP), all of which 
are authorized in the farm bill. These programs complement the hunger-
relief efforts of the Food Bank and the food donations they receive.
    Please remember the families who are struggling in Massachusetts 
and in our country by protecting and strengthening important programs 
like SNAP and TEFAP in the 2012 Farm Bill.
                        northern neck food bank
    Name: Marilyn McGlamary.
    Comment: I am volunteer coordinator at the Northern Neck Food Bank 
& see every day the need for fresh, nutritious food. Our food bank is 
working to draw local farmers into our system by agreeing to grow crops 
for our customers.
                           northwest harvest
    Name: Christina Wong.
    Comment: I work for Northwest Harvest--we are a private, nonprofit 
hunger relief organization providing nutritious food to food banks, 
meal programs and high need schools. Please use the farm bill to 
strengthen and protect SNAP, TEFAP, and CSFP. In our current economic 
climate, we must work to ensure that basic needs, like hunger, are met 
first. SNAP is working exactly as it was intended: it expands in times 
of high economic need and works towards its own shrinking of its rolls 
by being an economic stimulus, generating jobs and revenue in our food 
system while helping to feed hungry families who need a little 
assistance to help make it through until our economy improves. We need 
to extend the ARRA boost, and keep state options like Categorical 
Eligibility and Heat and Eat. These programs create efficiencies, 
saving administrative costs in eligibility and benefits determination 
and even the boost that they provide in benefits is not enough to meet 
all of a family's nutritional needs, i.e., is NOT keeping them 
comfortably fed so as to act as a disincentive from self-sufficiency. 
Otherwise, the loss of SNAP benefits will shift the burden of feeding 
families to the charitable hunger relief system which is already 
overburdened from serving record numbers of clients. Strengthen SNAP 
and strengthen TEFAP, the funds that help food banks with commodities 
and with operational costs--that is the partnership that is essential 
for eliminating hunger. Thank you.
                             nwi food bank
    Comment: I am a [fill in the blank] of NWI Food Bank. Right now, 
many families in our community are struggling. With increased demand 
for emergency food assistance, high food and gas prices, and declines 
in TEFAP commodities--a major source of the food we distribute--our 
food bank is having difficulty meeting the needs of our community. We 
need a strong farm bill to make sure that struggling families can put 
food on the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Donna Cunningham   (Supporter)        Lynn Jackson      (Supporter)
------------------------------------------------------------------------

                          oak park food pantry
    Names: Dede Berdelle; Kerry Buhmann; Julie Duff.
    Comment: I volunteer every month at the Oak Park Food Pantry 
serving very hungry people. Cutting SNAP will mean more hungry people 
will be even more hungry. Please don't cut SNAP.
                   oak park river forest food pantry
    Comment: I am a [fill in the blank] at the OPRF Food Pantry. 
Weekly, I hear how the combination of our efforts and the resources 
most of our clients currently receive from SNAP allow them to eat 
regularly. Notice I said ``a combination''. By reducing SNAP benefits 
in the latest rendition of the ``Farm bill'' you will ensure many of 
our clients will no longer have that privilege. Think about it--the 
``privilege to eat regularly''. In this country. Really?
    Please do Not cut SNAP benefits. Hunger is Not a pretty sight.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Dawn Altman        (Employee)         Lorraine Arnold   (Volunteer)
Elizabeth Backes   (Volunteer)        Peter Clark       (Volunteer)
Kiley Delaney      (Volunteer)        Vera Dowell       (Volunteer)
Iris Earzo         (Volunteer)        Pat Eichenold     (Volunteer)
Bob Haisman        (Volunteer)        Monica Halloran   (Volunteer)
Dawn Lustig        (Volunteer)        Karen Mansfield   (Volunteer)
Judith McDevitt    (Volunteer)        Larry Michel      (Volunteer)
Donna Myers        (Volunteer)        Maureen Newman    (Volunteer)
Kristen Ras        (Volunteer)        Laurel Saltzman   (Volunteer)
Kathryn Werner     (Volunteer)
------------------------------------------------------------------------

                                  ohio
    Comment: As a [fill in the blank] for a hunger program serving the 
[fill in the blank] district, I am writing to share my concern about 
hunger in Ohio. Congress should do its part by continuing to support 
anti-hunger programs like the Supplemental Nutrition Assistance Program 
(SNAP) and The Emergency Food Assistance Program (TEFAP), which are 
authorized in the 2012 Farm Bill. Given the associated health care and 
educational costs of hunger and poor nutrition, cuts to anti-hunger 
programs will only increase hunger in America.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Melisa Michael     (Volunteer)        Gregory and Ann   (Volunteers)
                                       Walker
Jeff Wright        (Volunteer)
------------------------------------------------------------------------

                            oregon food bank
    Comment: I am an [fill in the blank] of Oregon Food Bank. Right 
now, many families across our state are struggling. With increased 
demand for emergency food assistance, high food and gas prices, and 
declines in TEFAP commodities--a major source of the food we 
distribute--our food bank is having difficulty meeting the needs of our 
communities. We need a strong farm bill to make sure that struggling 
families can put food on the table. I know from personal experience 
what a lifeline SNAP can be for getting back on your feet during a 
period of unemployment, and I ask that you pass a farm bill that 
protects and strengthens programs like SNAP, TEFAP, and CSFP. Our state 
cannot afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
James Hensel       (Employee)         Tracie Weitzman   (Employee)
------------------------------------------------------------------------

                        oregon food bank network
    Comment: All Americans deserve to be healthy and have the 
opportunity to prosper. At a time of record need for emergency food 
assistance, two programs in the farm bill, the Supplemental Nutrition 
Assistance Program (SNAP) and The Emergency Food Assistance Program 
(TEFAP), must be strengthened and enhanced. I am a [fill in the blank] 
of the Oregon Food Bank Network, and its resources are stretched thin 
as they work to keep up with the high level of food insecurity in 
Oregon and Southwest Washington. The charitable sector simply cannot 
make up for cuts to critical nutrition programs like SNAP and TEFAP.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Jamie Adams        Cheryl Alto        Judith Beck        Renee Cote         Kristopher Dausz   Ineke Deruyter
Nicole Gibson      Steven Harrop      James Hensel       John Gregory       Callie Jordan      Judith Lienhard
                                                          Johnson
Pamela Mahon       Caryn May          Laurence Morandi   Janet Moss Wade    Ben Ngan           Jenni Nowak
James Prelack      Gregory            Dale Secord        Lynn F. Shaker     Kulick Sharon      Steve Sullivan-
                    Ptaszynski                                                                  Lanphier
George Taylor      Patti Thompson     Marcy Wambach      Julia Williamson   David Wilson       Sonia Tellez
----------------------------------------------------------------------------------------------------------------

           our lady of mt. carmel st. vincent depaul society
    Name: Frances Teresczuk.
    Comment: Food programs that help to feed the growing number of 
hungry Americans should not be cut. It would be harmful to the people 
we serve if cuts are made in the farm bill. The biggest concern for 
low-income families is having enough food to feed their family. Our 
agency, Our Lady of Mt. Carmel St. Vincent dePaul Society, provides a 
food pantry and a weekly hot-meal program for members of our community. 
These families need these programs to sustain a quality lifestyle.
                oxford area neighborhood services center
    Name: Carla Brown.
    Comment: I work at the Oxford Area Neighborhood Services Center in 
Oxford, PA, in southwestern Chester County. One of the services we 
provide for our community is a food pantry. We receive food provided by 
state grants and TEFAP (The Emergency Food Assistance Program). Our 
food needs have increased 37% over the last 3 years but our funding has 
remained the same, and the TEFAP items have decreased dramatically over 
the last year. Our food pantry is not alone in this problem . . . We 
need increases in our funds and in the TEFAP items we desperately need. 
Please continue the farm bill and if possible increase it so that we 
can better meet the demands in our community. Thank you.
                          ozarks food harvest
    Comment: I am a [fill in the blank] of Ozarks Food Harvest in 
Springfield, MO. With traditional food streams declining, I know it is 
difficult to meet the needs of our community, despite the improvement 
of the economy. We need a strong farm bill to make sure we can help put 
food on the table for those that are struggling. I ask that you pass a 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. These programs are critical to the thousands of people with 
hunger issues in southwest Missouri. Please help these people in need 
in the next farm bill.
    Thank you,

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Buddy Ball         (Volunteer)        Virginia Jones    (Volunteer)
------------------------------------------------------------------------

                       palm bay christian church
    Name: Shauna Whisman, Coordinator.
    Comment: I am a coordinator of the food pantry at Palm Bay 
Christian Church in Palm Bay, Florida. Over the years my family has had 
to rely on the efforts and dedication of others to sustain our family. 
It has always been a welcome relief during a very difficult situation. 
Palm Bay Christian Church utilizes the donations and financial 
assistance that is given to the Second Harvest Food Bank of Central 
Florida to help fight hunger in our community. Right now, many families 
in our community are struggling. With increased demand for emergency 
food assistance, high food and gas prices, and declines in TEFAP 
commodities--a major source of the food we distribute--our food bank is 
having difficulty meeting the needs of our community. We need a strong 
farm bill to make sure that struggling families can put food on the 
table. I ask that you pass a farm bill that protects and strengthens 
programs like SNAP, TEFAP, and CSFP. Our community cannot afford cuts 
to these programs. Please do not let the families and especially the 
children within our community go hungry.
                              pennsylvania
    Comment: I am a [fill in the blank] of the [fill in the blank] Food 
[Bank/Pantry] in [fill in the blank]. Right now, many families in our 
community are struggling. With increased demand for emergency food 
assistance, high food and gas prices, and declines in TEFAP 
commodities--a major source of the food that is distributed by food 
pantries, soup kitchens, and shelters--our agency is having difficulty 
meeting the needs of our community. We need a strong farm bill to make 
sure that struggling families can put food on the table. I ask that you 
pass a farm bill that protects and strengthens programs like SNAP, 
TEFAP, and CSFP. Our community cannot afford cuts to these programs.
    Thank you.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Agnes Gibson       (Volunteer)        Jill Lawton       (Food Banker)
Charlese McKinney  (Supporter)        Teresa Pomerleau  (Supporter)
Naomi Siegel       (Supporter)        Janet Yodanis     (Supporter)
------------------------------------------------------------------------

                      phoenixville, pa food pantry
    Name: Lisa Scott.
    Comment: Please do not cut the farm bill. I am involved with a food 
pantry in Phoenixville, PA and we are already noticing a drop in food 
from the Federal government. Providing food to community members is 
important. Please do not cut this program. We need your help as well. 
Looking at the big picture, cutting this program could cause an 
increase in hunger in American, which could cause an increase in poor 
nutrition and health care costs.
                          pittsburgh food bank
    Name: Suzanne Smith.
    Comment: I want you to protect the SNAP, TEFAP and CSFP programs. 
These are front line programs to protect against food insecurity and 
hunger in PA. I have met many families that are struggling to put food 
on the table and meet all of their other living expenses--especially 
not having medical care. Protecting food programs helps families stay 
whole. Additionally going back to the asset test for SNAP will only be 
an additional cost to the program and will deter families from 
applying. It also so against what we encourage families to do to bring 
themselves out of poverty saving money and working.
                      plainville' food for friends
    Name: Ruth Bernadt.
    Comment: I am a supporter and volunteer of Plainville' Food for 
Friends organization serving the Greater Hartford, CT area. Right now, 
many families in our community are struggling. With increased demand 
for emergency food assistance, high food and gas prices, and declines 
in TEFAP commodities--a major source of the food we distribute--our 
organization is having difficulty meeting the needs of our community. 
We need a strong farm bill to make sure that struggling families can 
put food on the table. I ask that you pass a farm bill that protects 
and strengthens programs like SNAP, TEFAP, and CSFP. Our community 
cannot afford cuts to these programs.
              prince of peace lutheran church food pantry
    Name: Janet Vokovich, Co-Team Leader.
    Comment: I am a co-team leader of the Prince of Peace Lutheran 
Church Food Pantry in Orlando, FL. This past month we served 250 
families (over 1,000 people) with food. The need has grown over 50% in 
the past year. We are asking that you support a strong farm bill that 
strengthens the TEFAP, SNAP and EBT programs. Our pantry depends on the 
TEFAP food we obtain from Second Harvest Food Bank to provide good 
nutrition to our clients. We see all segments of the the population, 
young families and senior citizens. Please vote to help us continue our 
work with no cuts. Thank you.
                            putney foodshelf
    Name: Susan Kochinskas.
    Comment: I am a volunteer at the Putney Foodshelf in Putney 
Vermont. With traditional food streams declining, we continue to find 
it difficult to meet the needs of our community, despite the 
improvement of the economy. (the number of families needing our help 
with supplemental food is going up.) We need a strong farm bill to make 
sure that we can put food on the table for those that are still 
struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These programs are a 
lifeline to the many people struggling with hunger in your district, 
and I urge you make them a priority in the next farm bill.
             ri community food bank and the genesis project
    Name: Ann Brassard.
    Comment: I am a supporter of Feeding America and my local food 
banks--RI Community Food Bank and The Genesis Project. Despite the 
recent improvement of the economy in some parts of the country, there 
are still many people who may not know where their next meal will come 
from. We need a strong farm bill to help put food on the table for 
vulnerable children, seniors, and low-income families. Please pass a 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. Cutting these programs is not the way to balance the budget. I 
urge you make them a priority in the next farm bill.
                    roadrunner food bank/las cruces
    Name: Donna Kuehn.
    Comment: As a supporter of my local Roadrunner Food Bank and a 
volunteer at one of the Las Cruces food pantry sites, I am writing to 
share my concern about hunger in New Mexico. With unemployment still 
high and many Americans still struggling to make ends meet, anti-hunger 
programs are helping many of our neighbors just put food on the table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance. 
Feeding our neighbors is a public-private partnership. I try to do my 
part by helping at one of the food pantry sites in Las Cruces twice a 
week. We would not be able to help the participating families without 
the current government-supported programs
    I urge Congress to continue supporting anti-hunger programs like 
the Supplemental Nutrition Assistance Program (SNAP), The Emergency 
Food Assistance Program (TEFAP), and the Commodity Supplemental Food 
Program (CSFP), all of which are authorized in the farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill 
reauthorization.
                       safe net ministries, inc.
    Name: Joanne Graves.
    Comment: I am a volunteer at Safe Net Ministries, Inc., serving the 
Greater Hartford, CT area. Right now, many families in our community 
are struggling. With increased demand for emergency food assistance, 
high food and gas prices, and declines in TEFAP commodities--a major 
source of the food we distribute--our organization is having difficulty 
meeting the needs of our community. We need a strong farm bill to make 
sure that struggling families can put food on the table. I ask that you 
pass a farm bill that protects and strengthens programs like SNAP, 
TEFAP, and CSFP. Our community cannot afford cuts to these programs.
                    saint vincent depaul food pantry
    Name: Janet Stoffel.
    Comment: I am a supporter and volunteer for our local Saint Vincent 
DePaul food pantry. Right now, many families in our community are 
struggling. With increased demand for emergency food assistance, high 
food and gas prices, and declines in TEFAP commodities--a major source 
of the food we distribute--our food pantry is having difficulty meeting 
the needs of our community. We need a strong farm bill to make sure 
that struggling families can put food on the table. I ask that you pass 
a farm bill that protects and strengthens programs like SNAP, TEFAP, 
and CSFP. Our community cannot afford cuts to these programs
                        second harvest food bank
    Comment: I am a [fill in the blank] of Second Harvest Food Bank. 
Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Thomas Harris      (Supporter)        Dennis Hill       (Supporter)
Michael Iberis     (Employee)         Michele James     ................
Jeff Kaplan        (Supporter)        Judith Lents      (Supporter)
Mike Schnitzer     (Supporter)        Lena Tolliver     (Supporter)
------------------------------------------------------------------------

              second harvest food bank of central florida
    Name: Katherine Martin.
    Comment: I am a strong supporter of Second Harvest Food Bank of 
Central Florida. Right now, many families in our community are 
struggling. With increased demand for emergency food assistance, high 
food and gas prices, and declines in TEFAP commodities--a major source 
of the food we distribute--our food bank is having difficulty meeting 
the needs of our community. We need a strong farm bill to make sure 
that struggling families can put food on the table. I ask that you pass 
a farm bill that protects and strengthens programs like SNAP, TEFAP, 
and CSFP. Our community cannot afford cuts to these programs.
      second harvest food bank of the lehigh valley and northeast 
                              pennsylvania
    Comment: I am a [fill in the blank] of Second Harvest Food Bank of 
Lehigh Valley and Northeast Pennsylvania. Right now, many families in 
our community are struggling. With increased demand for emergency food 
assistance, high food and gas prices, and declines in TEFAP 
commodities--a major source of the food we distribute--our food bank is 
having difficulty meeting the needs of our community. We need a strong 
farm bill to make sure that struggling families can put food on the 
table. I ask that you pass a farm bill that protects and strengthens 
programs like SNAP, TEFAP, and CSFP. Our community cannot afford cuts 
to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Lindsay Deemer     (Employee)         Sharon Hall       (Supporter)
Janet Ney          (Employee)
------------------------------------------------------------------------

                 second harvest food bank-daytona beach
    Name: Myrtis Rimassa.
    Comment: I am a supporter of Second Harvest Food Bank-Daytona Beach 
area. Right now, many families in our community are struggling and 
unemployment is extremely high. With increased demand for emergency 
food assistance, high food and gas prices, and declines in TEFAP 
commodities--a major source of the food we distribute--our food bank is 
having difficulty meeting the needs of our community. We need a strong 
farm bill to make sure that struggling families can put food on the 
table. I ask that you pass a farm bill that protects and strengthens 
programs like SNAP, TEFAP, and CSFP. Our community cannot afford cuts 
to these programs.
                       second harvest food banks
    Name: Cynthia Flatt.
    Comment: I am a SUPPORTER of Second Harvest Food Banks. Right now, 
many families in our community are struggling. With increased demand 
for emergency food assistance, high food and gas prices, and declines 
in TEFAP commodities--a major source of the food we distribute--our 
food bank is having difficulty meeting the needs of our community. We 
need a strong farm bill to make sure that struggling families can put 
food on the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.
             second harvest foodbank of southern wisconsin
    Name: Lisa Gundlach.
    Comment: I am an employee of Second Harvest Foodbank of Southern 
Wisconsin. We serve nearly 141,000 individuals facing hunger every year 
and are serving 83% more than we were in 2006. With increased demand 
for emergency food assistance and high food and gas prices, we need a 
strong farm bill to make sure that struggling families can put food on 
the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.
    Thank you for your time.
                 second harvest north central food bank
    Comment: I am a supporter of Second Harvest North Central Food Bank 
in north central Minnesota. With traditional food streams declining, we 
continue to find it difficult to meet the needs of our community, 
despite the improvement of the economy. We need a strong farm bill to 
make sure that we can put food on the table for those that are still 
struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These programs are a 
lifeline to the 29,600 people struggling with hunger in your district, 
and I urge you make them a priority in the next farm bill.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Peggy Albert       (Supporter)        Cynthia Brummer   (Donor and
                                                         Supporter)
Judith             (Volunteer,        Ellen Christmas   (Employee)
 Christenson        Donor, and
                    Supporter)
Susan Estee        (Employee)         Martha Lentz      (Volunteer,
                                                         Donor, and
                                                         Supporter)
------------------------------------------------------------------------

                        shared harvest foodbank
    Name: Tina Osso, Executive Director.
    Comment: I am the Executive Director at Shared Harvest Foodbank. 
With traditional food streams declining, we continue to find it 
difficult to meet the needs of our community, despite the improvement 
of the economy. We need a strong farm bill to make sure that we can put 
food on the table for those that are still struggling. I ask that you 
pass a farm bill that protects and strengthens programs like TEFAP, 
SNAP, and CSFP. These programs are a lifeline to the 64,000 people 
struggling with hunger in your district, and I urge you make them a 
priority in the next farm bill.
                         sheffield food pantry
    Name: Norma Williams, Treasurer.
    Comment: I am the Treasurer of the Sheffield Food Pantry in 
Sheffield Vermont. With traditional food streams declining, we continue 
to find it difficult to meet the needs of our community, despite the 
improvement of the economy. We need a strong farm bill to make sure 
that we can put food on the table for those that are still struggling. 
I ask that you pass a farm bill that protects and strengthens programs 
like TEFAP, SNAP an CSFP. These programs are a lifeline to the many 
people struggling with hunger here in Sheffield VT, I urge you make 
them a priority in the next farm bill.
                         south jersey food bank
    Name: John Eskate.
    Comment: I am a supporter of Feeding America, the South Jersey Food 
Bank, and Philabundance. Despite the recent improvement of the economy, 
there are still many people who may not know where their next meal will 
come from. We need a strong farm bill to help put food on the table for 
vulnerable children, seniors, and low-income families. Please pass a 
farm bill that protects and strengthens programs like TEFAP, SNAP, and 
CSFP. Cutting these programs is not the way to balance the budget. I 
urge you make them a priority in the next farm bill.
                      south texas food bank letter
    Comment:

May 14, 2012

House Committee on Agriculture
1301 Longworth Building
Washington, D.C.

    Dear Chairman Lucas, Ranking Member Peterson, and members of the 
Committee:

    Thank you for the opportunity to provide input on the upcoming farm 
bill reauthorization. Given the increasing need for food assistance in 
our state and the declining supply of Federal commodity support, I 
strongly urge you protect and strengthen nutrition programs in the 2012 
Farm Bill.
    At the South Texas Food Bank, we see every day how important 
Federal nutrition programs are in our community and how effectively 
they are working to ensure that struggling South Texans can provide 
enough food for their families. Currently, the South Texas Food Bank 
serves 700,000 people annually.
    Nationally, the Feeding America network of more than 200 food banks 
has seen a 46 percent increase in food bank clients from 2006 to 2010, 
and we are struggling to keep up with increased demand. Without strong 
farm bill nutrition programs like The Emergency Food Assistance Program 
(TEFAP), the Supplemental Nutrition Assistance Program (SNAP), and the 
Commodity Supplemental Food Program (CFSP), food banks across the 
country would be struggling even more to meet the increased need.
    We recognize the challenge you face drafting a farm bill in a time 
of deficit reduction, but we are also sensitive to the tremendous, 
ongoing need in our state. As such, we have two key priorities for the 
farm bill.
    First, we urge you to strengthen TEFAP to help us keep up with 
increased demand. TEFAP supplies about 25 percent of the food moving 
through Feeding America's national network of food banks. But because 
of strong commodity prices, TEFAP food declined 30 percent last year, 
and our food bank is struggling to make up the difference. We urge you 
to make TEFAP more responsive during times of high need by tying 
increases in mandatory funding to a trigger based on unemployment 
levels. We also propose to enhance the Secretary of Agriculture's 
authority to make TEFAP bonus purchases at times when the need for 
emergency food assistance is high--for example high unemployment--in 
addition to times of weak agriculture markets so that the program can 
respond to both excess supply and excess demand.
    Second, we also strongly urge you to protect SNAP from harmful 
funding cuts or policy proposals that would restrict eligibility or 
reduce benefits. SNAP has responded effectively to growing need in the 
recession with benefits that are timely, targeted, and temporary. The 
average SNAP household has an income of only 57 percent of the Federal 
poverty guideline, and 84 percent of benefits go to households with a 
child, senior, or disabled person. The program is working to support 
vulnerable Texas families, and our food bank or local agency partners 
would not be able to meet the increased need for food assistance if 
SNAP were cut.
    These programs have a real impact on your constituents, many of 
whom must rely on the food bank and Federal nutrition programs to meet 
their basic food needs. I would encourage you to visit the food banks 
serving your district before the Committee marks up a farm bill so you 
can meet our clients and see firsthand how Federal nutrition programs 
are working to protect vulnerable Americans from hunger.
    The South Texas Food Bank believes that feeding our neighbors is a 
shared responsibility, and food banks like ours rely on a variety of 
food streams to support our communities, including generous support 
from partners in retail, manufacturing, and agriculture. However, the 
Federal Government is an equally critical partner through programs like 
TEFAP, SNAP, and CSFP, and with tremendous, ongoing need in our state, 
ongoing Federal support is more important than ever.
    As the House Agriculture Committee moves forward with farm bill 
reauthorization, our food bank urges you to protect the nutrition 
safety net and offers the specific recommendations below.
            Sincerely,

 
 
 
Rev. Jose Angel          Carla Gonzalez           Brenda Pardue
Elia Solis               Sandra Vela
 

Feeding America Farm Bill Priorities
    The Emergency Food Assistance Program (TEFAP): TEFAP is a means-
tested Federal program that provides food commodities at no cost to 
Americans in need of short-term hunger relief through organizations 
like food banks, pantries, soup kitchens, and emergency shelters. 
Nutritious food commodities provided through TEFAP are an essential 
resource for Feeding America food banks. As the demand for food remains 
high at food banks across the country, a continuous stream of TEFAP is 
necessary for the provision of a steady emergency food supply.

  <bullet> TEFAP commodities account for approximately 25% of the food 
        moving through Feeding America food banks. Food banks combine 
        TEFAP with private donations to maximize TEFAP benefits far 
        beyond the budgeted amount for the program. In this way, food 
        banks exemplify an optimum model of public-private partnership.

  <bullet> TEFAP has a strong impact on the farm economy. According to 
        USDA's Economic Research Service, producers of commodities 
        provided as bonus TEFAP (those purchased by USDA to intervene 
        in weak agricultural markets) receive an estimated 85 cents per 
        dollar of Federal expenditure. Producers of other commodities 
        provided through TEFAP receive about 27 per dollar. By 
        contrast, only about 16 of every retail food dollar goes back 
        to the farmer.

  <bullet> Declines in Section 32 funding and strong agriculture 
        markets resulted in a 30% decline in TEFAP purchases during FY 
        2011. This decline is expected to continue in FY 2012 as food 
        banks continue struggling to meet increased need. The shortfall 
        between supply and demand will only worsen when the SNAP ARRA 
        benefit boost expires, as many participants turn to food banks 
        to make up for the reduction in benefit levels.

    Farm Bill Priorities for TEFAP:

  <bullet> Make mandatory funding for TEFAP food more responsive to 
        changes in need by providing a trigger that ties funding to 
        unemployment levels

  <bullet> Enhance Secretary of Agriculture's authority to purchase 
        bonus commodities in times of high need for emergency food 
        relief in addition to times of low commodity prices so the 
        program is responsive both to excess supply and excess demand

  <bullet> Reauthorize funding for TEFAP Storage and Distribution Funds 
        at $100 million per year

  <bullet> Reauthorize funding for TEFAP Infrastructure Grants at $15 
        million per year

    Supplemental Nutrition Assistance Program (SNAP): SNAP is the 
cornerstone of the nutrition safety net, providing over 46 million low-
income participants with monthly benefits via a grocery debit card. 
Eligibility is based on household income and assets and is subject to 
work and citizenship requirements. SNAP is one of the most responsive 
safety net programs, expanding quickly to meet rising need during the 
recession. The program is targeted at our most vulnerable; 76% of SNAP 
households contain a child, senior, or disabled member, and 84% of all 
benefits go to these households.

  <bullet> As the number of people unemployed grew 110% from 2007 to 
        2010, SNAP responded with a 53% increase in participation over 
        the same period. As the economy slowly recovers and 
        unemployment begins to fall, SNAP participation and costs too 
        can be expected to decline.

  <bullet> The SNAP accuracy rate of 96.19% (FY10) is an all-time 
        program high. SNAP error rates declined by 61% from FY 1999 to 
        FY 2010, from 9.86% to a record low of 3.81%.

  <bullet> SNAP benefits supplement a household's food budget but are 
        insufficient to last most participants through the month, 
        causing many participants to rely regularly on food banks. 
        Among Feeding America food pantry clients receiving SNAP 
        benefits, over \1/2\ (58%) reported having visited a food 
        pantry at least 6 months or more during the prior year.

  <bullet> The average SNAP household has a gross monthly income of 
        $731 and countable resources of $333, consists of 2.2 persons, 
        and participates in the program for 9 months. The average 
        household receives a monthly benefit of $287, or about $1.49 
        per person per meal.

    Farm Bill Priorities for SNAP:

  <bullet> Protect SNAP by opposing proposals to cap or reduce funding, 
        restrict eligibility, reduce benefits, or otherwise impede 
        access or benefit adequacy. Recent proposals to block grant the 
        program would prevent it from responding effectively to 
        fluctuations in need, and efforts to limit broad based 
        categorical eligibility would increase administrative costs and 
        access barriers.

  <bullet> Restore the cut to the SNAP ARRA benefit boost used to pay 
        for the 2010 child nutrition bill and phase out the boost in a 
        way that protects families from a cliff in benefit levels.

  <bullet> Encourage better nutrition by maintaining nutrition 
        education, incentivizing the purchase of healthy foods, and 
        ensuring that retailer standards balance adequate access to 
        stores with access to a range of healthy foods and moderate 
        prices.

  <bullet> Build on SNAP's strong record of integrity and payment 
        accuracy by issuing guidance to states on the eligibility of 
        lottery winners and college students and upgrading resources 
        and technology for trafficking prevention.

    Commodity Supplemental Food Program (CSFP): CSFP leverages 
government buying power to provide nutritious food packages to 
approximately 599,000 low income people each month. Nearly 97 percent 
of program participants are seniors with incomes of less than 130% of 
the poverty line (approximately $14,000 for a senior living alone). 
Currently, 39 states and the District of Columbia participate in CSFP. 
Another six states (CT, HI, ID, MD, MA, & RI) have USDA-approved plans, 
but have not yet received appropriations to begin service.

  <bullet> CSFP is an efficient and effective program. While the cost 
        to USDA to purchase commodities for this package of food is 
        about $20 per month, the average retail value of the foods in 
        the package is $50.

  <bullet> CSFP helps to combat the poor health conditions often found 
        in seniors who are experiencing food insecurity and at risk of 
        hunger. CSFP food packages, specifically designed to supplement 
        nutrients typically lacking in participants' diets like 
        protein, iron, and zinc, can play an important role in 
        addressing the nutrition needs of low-income seniors.

  <bullet> Many seniors participating in CSFP are able to have their 
        food boxes delivered directly to their homes or to seniors' 
        centers nearby, an important benefit for those who are 
        homebound, have limited mobility or do not have convenient 
        access to a grocery store.

    Farm Bill Priorities for CSFP:

  <bullet> Transition CSFP to a seniors-only program by phasing out 
        eligibility of women, infants, and children while 
        grandfathering in current participants.
                                 ______
                                 
                   southern arizona food bank letter
    I am a [fill in the blank] of the Community Food Bank of Southern 
Arizona. Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs. If you are looking for 
a source of funding to offset the cost of these programs I suggest you 
stop playing politics and start earning your pay. The best way to pay 
for essential services is through taxation. Stop cutting taxes and 
start raising the revenue needed to fund essential services before it 
is too late . . .

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
                                                        A
----------------------------------------------------------------------------------------------------------------
William Abraham    (Supporter)        Cassie Alegria     (Supporter)        Jetana Allison     (Supporter)
Lucy M. Almasy     (Supporter)        Grace Aranda       (Supporter)        Deirdre Avery      (Supporter)
----------------------------------------------------------------------------------------------------------------
                                                        B
----------------------------------------------------------------------------------------------------------------
Bobby Baxter       (Supporter)        Barbara Beach      (Volunteer)        David Benton       (Supporter)
Maureen Bike       (Supporter)        Timothy Bolen      (Employee)         Scott Brill        (Supporter)
Robert Brooks      (Supporter)        Dorothy Bruce      (Supporter)        Rosalva A.         (Supporter)
                                                                             Bullock
Carol Burgess      (Supporter)        Margo Burwell      (Volunteer)        Carol Buuck        (Supporter)
----------------------------------------------------------------------------------------------------------------
                                                        C
----------------------------------------------------------------------------------------------------------------
William Carnegie   (Employee)         Megan Carver       (Supporter)        Jessica Castillo   (Employee)
Patrick Chaisson   (Supporter)        Tim Challis        (Supporter)        John Chambers      (Volunteer)
Connie Clark       (Supporter)        Dan Cole           (Supporter)        Dena Cowan         (Supporter)
----------------------------------------------------------------------------------------------------------------
                                                        D
----------------------------------------------------------------------------------------------------------------
Nicollette Daly    (Supporter)        Sarah A.           (Supporter)        Laura Dickerson    (Supporter)
                                       Danielson
Arthur Dixon       (Supporter)        Keri Dixon         (Supporter)        Deborah Dobson     (Supporter)
----------------------------------------------------------------------------------------------------------------
                                                        E
----------------------------------------------------------------------------------------------------------------
Alice Eager        (Supporter)        Bess Edmunds       (Supporter)        Judy Elder         (Supporter)
Pamela Endicott    (Employee)         David Engelsberg   (Supporter)
----------------------------------------------------------------------------------------------------------------
                                                        F
----------------------------------------------------------------------------------------------------------------
Dick Fisher        (Supporter)        Scott Forrer       (Supporter)        Dale Free          (Supporter)
Sherry Fritz       (Supporter)
----------------------------------------------------------------------------------------------------------------
                                                        G
----------------------------------------------------------------------------------------------------------------
Susan Gamble       (Supporter)        Patricia Gehlen    (Supporter)        Ruth Gray          (Supporter)
----------------------------------------------------------------------------------------------------------------
                                                    H, I & K
----------------------------------------------------------------------------------------------------------------
Hilary Hamlin      (Supporter)        Nicole Hampton     (Supporter)        Sara Hastings      (Supporter)
Kristen            (Supporter)        Karen Heyse        (Supporter)        Hannah Holik       (Supporter)
 Hershberger
Rachel Holik       (Supporter)        Lou Hummel         (Supporter)        Sandra Hummel      (Supporter)
Martha Hunter      (Donor)            Lauri Israel       (Supporter)        Donna Kaniss       (Supporter)
Molly Kent         (Supporter)        Robert Kleban      (Supporter)        Gene Kraay         (Volunteer)
----------------------------------------------------------------------------------------------------------------
                                                        L
----------------------------------------------------------------------------------------------------------------
Albert Lannon      (Supporter)        Antonia Lauterio   (Supporter)        Sam Levitz         (Supporter)
Marco Liu          (Employee)         Patricia Long      (Supporter)        Anne Lopez         (Supporter)
Carrel Loveless    (Donor)
----------------------------------------------------------------------------------------------------------------
                                                        M
----------------------------------------------------------------------------------------------------------------
Andrea Mannell     (Supporter)        David Marshall     (Supporter)        Katy McAllister    (Supporter)
Kord McDaris       (Supporter)        Luke McDaris       (Supporter)        Samuel McGaha      (Supporter)
Deborah McMullen   (Supporter)        Amy Mellor         (Intern)           Leah Mercer        (Supporter)
John E. Miller     (Supporter)        Randy Montgomery   (Supporter)        Nicholas Moran     (Donor)
Sarah More         (Supporter)        Mo Moslem          (Supporter)        Sally Myers        (Supporter)
----------------------------------------------------------------------------------------------------------------
                                                        N
----------------------------------------------------------------------------------------------------------------
Desika Narayanan   (Supporter)
----------------------------------------------------------------------------------------------------------------
                                                        P
----------------------------------------------------------------------------------------------------------------
Joan Patch         (Supporter)        Lois Pawlak        (Supporter)        Clayton Phillips   (Supporter)
Kent Phillips      (Supporter)        Mark Phillips      (Supporter)        Sandra Phillips    (Supporter)
Zach Phillips      (Supporter)        Terry Plapp-Frank  (Supporter)        Jane Prinz         (Donor)
----------------------------------------------------------------------------------------------------------------
                                                      Q & R
----------------------------------------------------------------------------------------------------------------
John Quillen       (Supporter)        Joseph Ramirez     (Supporter)        Michael            (Supporter)
                                                                             Reinschmidt
Bill Remmel        (Supporter)        ElizaBeth Root     (Supporter)        Mary Ann Rosas     (Supporter)
Barbara Rose       (Supporter)        Elizabeth          (Supporter)
                                       Rosenblatt         ((Volunteer)
                                                          (Deacons' Food
                                                          Pantry))
----------------------------------------------------------------------------------------------------------------
                                                        S
----------------------------------------------------------------------------------------------------------------
Nancy Scholtz      (Supporter)        Richard Sexton     (Supporter)        Eve Shapiro        (Supporter)
Alisa Z. Shorr     (Supporter)        Terry Shreve       (Supporter)        Natanya Siegel     (Supporter)
Douglas Smith      (Supporter)        Chester Squire     (Supporter)        Sharlene Stager    (Supporter)
Elias              (Supporter)        Juan Suarez        (Supporter)        Helen Swanson      (Supporter)
 Stratigouleas
----------------------------------------------------------------------------------------------------------------
                                                      T & U
----------------------------------------------------------------------------------------------------------------
Aileen Thatcher    (Supporter)        Cecily Urizar-     (Supporter)
                                       Faught
----------------------------------------------------------------------------------------------------------------
                                                      W & Y
----------------------------------------------------------------------------------------------------------------
Colleen Wallace    (Employee)         Rebecca Werner     (Supporter)        Susan Willis       (Supporter)
Claudia Wright     (Supporter)        Janay Young        (Supporter)
----------------------------------------------------------------------------------------------------------------

                       springfield family center
    Name: Stephanie Gibson, Executive Director.
    Comment: My name is Stephanie Gibson and I am the Executive 
Director at the Springfield Family Center in Springfield, Vermont.
    I want to make a point to share with you support of the farm bill.
    With traditional food streams declining, we continue to find it 
difficult to meet the needs of our community, despite the slow but 
continued improvement of the economy.
    We need a strong farm bill to make sure that we can put food on the 
table for those that are still struggling.
    At a time when we need to be able to offer the safety-net emergency 
services the most, that is when it seems we get the least support.
    I ask that you pass a farm bill that protects and strengthens 
programs like TEFAP, SNAP, and CSFP. These programs are a lifeline to 
the many people struggling with hunger in my community and your State, 
and I urge you make them a priority in the next farm bill.
    I invite you to visit our organization, talk with our clients and 
see first hand the real struggles we are facing every day.
            Best,
    Stephanie Gibson,
    Executive Director,
    Springfield Family Center,
    [Redacted],
    Springfield, VT 05156.
    [Redacted].
                         st. edward food pantry
    Name: Anita Fein.
    Comment: Please do not cut or touch items like SNAP or TEFAP! These 
are very important to help us with our struggles to feed families in 
need. These are not frivolous items and are very important as we try 
our best to help the hungry. In large cities, such as NYC, we need 
this. With the economy still not what it used to be, our numbers have 
surged to record levels. Wages are not keeping up with surging prices 
for housing, medical, utilities and transportation expenses. Please 
help us and do not make the cuts that will hurt more people than you 
realize!
                        st. louis area foodbank
    Name: Ryan Farmer.
    Comment: Hunger is a national problem. Please protect programs like 
TEFAP and SNAP.
                        st. martin's food pantry
    Name: Charlaine McAnany.
    Comment: Please leave SNAP money alone. We still have so many 
people hungry as seen by St. Martin's Food Pantry and the Oak Park, 
River Forest Food Pantry's increased clientele.
                        st. peter's food pantry
    Name: Julie Scott.
    Comment: I am the Overall Pantry Coordinator for St. Peter's Food 
Pantry in Phoenixville, PA. Our pantry is run 100% on assistance from 
our government as well as donations of food and money from our 
community. Our pantry continues to see new clients every week who need 
our assistance to feed themselves and their families. Feeding our 
neighbors is a public-private partnership, and my team of volunteers 
are doing our part and we want our government to do its part. Cutting 
anti-hunger programs will increase hunger in America, as well as the 
associated health care, educational, and economic costs of food 
insecurity and poor nutrition. Please remember the families who are 
struggling in our community, and we urge you to protect and strengthen 
important anti-hunger programs like TEFAP, SNAP, and CSFP in the 2012 
Farm Bill reauthorization. Thank you for your consideration.
          st. vincent de paul--our lady queen of peace church
    Name: Sheila M. Rust.
    Comment: Please pass the agriculture bill to feed more Americans 
and helping the needy. I am one of them. I work at St. Vincent De Paul 
at Our Lady Queen Of Peace Church in New Port Richey Florida and also 
help with Feeding America. There are many, many hungry and needy people 
in Pasco county that need our help. There are many who are still 
unemployed and have used all the unemployment available to them that 
aren't counted in the amount of people on unemployment so it looks like 
there are less on unemployment but it is because they can no longer get 
it and are still not working. Many people are homeless or living in a 
home they bought and it is in foreclosure. We the people need help! 
Please help us!
            Sincerely,
    Sheila M. Rust
                st. vincent de paul society food pantry
    Name: Alejandro Concha.
    Comment: St. Vincent de Paul Society has a Food Pantry in 
Homestead, Fl. Each week. on Saturdays, from 8 to 10 a.m. or until we 
ran out of food, we provide food directly to more than 250 families. I 
would like to invite you to come and visit us when we are distributing 
food for the hungry. I am an older American and a volunteer to fight 
hunger in America.
                             stevens county
    Name: Ruth Vetsch, Director.
    Comment: I am the director of a small food bank in Stevens County. 
Even though we are small the food is drastically needed. The assistance 
for energy is vital to folks in this area. We earn our own funding 
however we really need whatever comes down the line from the State and 
other sources. If you close this avenue of assistance you will see an 
increase in the crime rates. People will feed their kids one way or 
another. Think about this very carefully, please.
                                 texas
    Comment: I am a [fill in the blank] of Feeding America and our 
local food bank in [fill in the blank]. We need to have a strong farm 
bill to help put food on the table for America's vulnerable population, 
such as children, the elderly, and low income families. Feeding and 
nourishing our needy population should be a number 1 priority, I feel 
success starts there for a person and a community. Please put together 
and pass a farm bill that will preserve and strengthen programs like 
TEFAP, SNAP, and CSFP. Feeding programs are absolutely vital to our 
foundation of our country.
    Thank you,

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Georgia Crump      (Supporter)        Jossie J. Fowler  (Supporter)
------------------------------------------------------------------------

                 the food bank of western massachusetts
    Name: Andrew Morehouse, Executive Director.
    Comment: I am the executive director at The Food Bank of Western 
Massachusetts. With traditional food streams declining, we continue to 
find it difficult to meet the needs of our community, despite the 
improvement of the economy. We need a strong farm bill to make sure 
that we can put food on the table for those that are still struggling. 
I ask that you pass a farm bill that protects and strengthens programs 
like TEFAP, SNAP, EFSP and WIC. These programs are a lifeline to the 
112,000 people struggling with hunger in your district, and I urge you 
to make them a priority in the next farm bill.
                           the foodbank, inc.
    Name: Deborah Combs.
    Comment: I am an employee of The Foodbank, Inc. in Dayton, Ohio. 
Right now, many families in our community are struggling. With 
increased demand for emergency food assistance, high food and gas 
prices, and declines in TEFAP commodities--a major source of the food 
we distribute--our food bank is having difficulty meeting the needs of 
our community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
               the greater pittsburgh community food bank
    Name: Robert Bilas.
    Comment: I am actively involved in the public/private partnership 
of solving the hunger problem in the U.S. and do my part by donating 
money and food to local and national food banks (Feeding America and 
The Greater Pittsburgh Community Food Bank). I would also like the 
Federal Government to do its part by reauthorizing and strengthening 
the SNAP, TEFAP and CSFP/Senior Boxes programs.
    The Federal Government will make the problem of hunger worse if it 
cuts programs like these. There are millions of Americans who depend 
upon these programs for basic food needs. These are NOT luxury items; 
they are necessities in many cases to the millions of families 
struggling in today's bad economic conditions. Cuts to these programs 
will increase hunger and cause additional problems in health, education 
and other areas.
    I urge the House Agriculture Committee to renew and strengthen 
these programs when it considers the 2012 Farm Bill.
                    the migrant farmworkers project
    Name: Paul Snyder, Food Pantry Supervisor.
    Comment: I am the Food Pantry Supervisor at The Migrant Farmworkers 
Project. With traditional food streams declining, we continue to find 
it difficult to meet the needs of our community, despite the 
improvement in the economy. We need a strong nutrition title in the 
farm bill to make sure that we can put food on the table for those who 
are still struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These programs are a 
lifeline to the thousands of people struggling with hunger in your 
district, and I urge you to make them a priority in the next farm bill.
                   the milton family community center
    Name: Cheryl Alwine, Food Shelf Manager.
    Comment: I am the Food Shelf Manager at The Milton Family Community 
Center in Milton Vermont. With traditional food streams declining, we 
continue to find it difficult to meet the needs of our community, 
despite the improvement of the economy. We need a strong farm bill to 
make sure that we can put food on the table for those that are still 
struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These programs are a 
lifeline to the many people struggling with hunger in your district, 
and I urge you make them a priority in the next farm bill.
                           the salvation army
    Name: Janet Charleston, Food Pantry Manager.
    Comment: I manage a food pantry at The Salvation Army and I see the 
demand growing all the time. I feel that because of the prices of other 
items such as gas and housing and utility and not getting enough or any 
food stamps and other government programs they have increased their use 
of pantries in their area. This is not going to change unless the cost 
of living improves. So programs such as SNAP CSFP and TEFAP need to be 
stronger programs not diminished programs. I hope your committee will 
really look at the amount of need around all our communities. I am only 
speaking for the issues in Lake County, In but I am sure it is the same 
in any city, county or state in this country. Please do the right thing 
and strengthen these programs and give our Food Bank as well as our at 
risk families better programs.
                 the salvation army east chicago corps
    Name: Capt. Daniel Paredes.
    Comment: I am a Captain Daniel Paredes of The Salvation Army East 
Chicago Corps in East Chicago. We run a Food Pantry and a Feeding 
Program. As our Congress District Representative you may know that our 
families in our community are struggling. The income level in East 
Chicago is lower than the U.S. poverty income level. With increased 
demand for emergency food assistance, high food and gas prices, and 
declines in TEFAP commodities--a major source of the food we 
distribute--our food bank is having difficulty meeting the needs of our 
community. We need a strong farm bill to make sure that struggling 
families can put food on the table. I ask that you pass a farm bill 
that protects and strengthens programs like SNAP, TEFAP, and CSFP. Our 
community cannot afford cuts to these programs.
                           the sharing center
    Name: Tonia Vogel.
    Comment: I am an EMPLOYEE of The Sharing Center. Right now, many 
families in our community are struggling. With increased demand for 
emergency food assistance, high food and gas prices, and declines in 
TEFAP commodities--a major source of the food we distribute--our food 
bank is having difficulty meeting the needs of our community. We need a 
strong farm bill to make sure that struggling families can put food on 
the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.
                        treasure coast food bank
    Comment: As an [fill in the blank] of Treasure Coast Food Bank, I 
am writing to share my concern about hunger in Florida. With 
unemployment still high and many Americans still struggling to make 
ends meet, anti-hunger programs are helping many of our neighbors just 
put food on the table.
    Nearly 50 million Americans are living in food insecurity. While 
food banks, churches, and pantries are doing great work in our 
community, charity alone cannot meet the need for food assistance. 
Feeding our neighbors is a public-private partnership.
    Congress should do its part by continuing to support anti-hunger 
programs like the Supplemental Nutrition Assistance Program (SNAP), The 
Emergency Food Assistance Program (TEFAP), and the Commodity 
Supplemental Food Program (CSFP), all of which are authorized in the 
farm bill.
    Cutting anti-hunger programs will increase hunger in America. Given 
the associated health care and educational costs of hunger and poor 
nutrition, cuts to anti-hunger programs are short-sighted.
    I ask you to please remember the families who are struggling in our 
country, and urge you to protect and strengthen important anti-hunger 
programs like TEFAP, SNAP, and CSFP in the 2012 Farm Bill re-
authorization. Thank you.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Mary Carlucci      (Employee)         Krista Garofalo   (Employee)
------------------------------------------------------------------------

                              tri-ko, inc.
    Name: Sarah Lamb, Vocational Instructor.
    Comment: I am a Vocational Instructor at Tri-Ko, INC. With 
traditional food streams declining, we continue to find it difficult to 
meet the needs of our community, despite the improvement in the 
economy. We need a strong nutrition title in the farm bill to make sure 
that we can put food on the table for those who are still struggling. I 
ask that you pass a farm bill that protects and strengthens programs 
like TEFAP, SNAP, and CSFP. These programs are a lifeline to the 
thousands of people struggling with hunger in your district, and I urge 
you to make them a priority in the next farm bill.
                       tucson community food bank
    Comment: We are [fill in the blank] of the Tucson community we are 
ardent supporters of the Tucson Food Bank. With an increasing demand 
for emergency food we need positive votes on the farm bill. With an 
increasing need for emergency food and declines in TEFAP--a major 
source of our food distribution--our food bank is having a difficult 
time meeting the needs of our community.
    We encourage you to not cut spending for the programs--SNAP, TEFAP 
and CSFB--and increase the benefits.
    Thank you.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Lee Olitzky        (Supporter)        Larry & Carol     (Supporters)
                                       Noon
Diane Wilson       (Supporter)
------------------------------------------------------------------------

                        ventura county food bank
    Name: Fran McNeill, Program Officer.
    Comment: As a resident of Camarillo, one of your constituents, and 
the Program Officer at Ventura County's Food Bank, I urge you to 
support a strong farm bill that protects vital food programs like 
TEFAP, SNAP, and CSFP. Many of our children, families, and seniors are 
hungry and forced to choose between food and medicine, rent, 
transportation to look for or keep their jobs. Food is the most basic 
need and cutting these programs when hunger is at an all time high is 
not the way to balance the budget. I urge you to make these programs a 
priority in the next farm bill.
                            vermont foodbank
    Comment: In Vermont, we struggle with hunger--14% of our residents 
are at risk of not having enough food to meet basic needs. One-third of 
people seeking charitable food assistance have children in their 
household--it adds up to 21% of our children living in food insecure 
households. To purchase the food needed to close the meal gap each year 
would cost over $41 million dollars. We are trying many innovative 
solutions to address our hunger issues, from improving charitable food 
systems to combating root causes of hunger.
    I am a [fill in the blank] of the Vermont Foodbank, in helping 
organize their largest fundraiser. While our event is successful, it is 
not enough for the demand in the state. Right now, 1 in 7 Vermonters is 
struggling with hunger. With increased demand for emergency food 
assistance, high food and gas prices, and declines in TEFAP 
commodities--a major source of the food we distribute--the Vermont 
Foodbank is having difficulty meeting the needs of our community. We 
need a strong farm bill to make sure that struggling families can put 
food on the table. I ask that you pass a farm bill that protects and 
strengthens programs like SNAP, TEFAP, and CSFP. Our community cannot 
afford cuts to these programs.
    Thank you!

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Jessica Cox        (Supporter)        Jennifer          (Employee)
                                       Hutchinson
Helen Labun        (Supporter)        Theresa McCabe    (Supporter)
 Jordan
Alan Scocca        (Supporter,        Judy Stermer      (Employee)
                    Employee)
Michelle Wallace   (Employee)         Donna Watts       (Employee)
------------------------------------------------------------------------

                                virginia
    Name: Judy Sperka.
    Comment: As a local food bank volunteer and supporter, I am alarmed 
by the growing number of food insecure families in our area. Mostly 
employed but still unable to afford adequate food, these children need 
our help. Please continue to support and fund SNAP and other food 
programs. Thank you.
                               washington
    Name: Ann O. Jackson.
    Comment: Dear Representative Reichert,

    Please support the portions of the farm bill that feed the hungry 
through TEFAP, SNAP, and CSFP. I support our local food banks who are 
experiencing increasing demands and ask that you speak for support of 
these programs.
            Sincerely,
    Ann O. Jackson.
                                  wcsi
    Name: Beth Barchesky.
    Comment: I am an employee of WCSI. Right now, many families in our 
community are struggling. With increased demand for emergency food 
assistance, high food and gas prices, and declines in TEFAP 
commodities--a major source of the food we distribute--our food bank is 
having difficulty meeting the needs of our community. We need a strong 
farm bill to make sure that struggling families can put food on the 
table. I ask that you pass a farm bill that protects and strengthens 
programs like SNAP, TEFAP, and CSFP. Our community cannot afford cuts 
to these programs.
                     westmoreland county food bank
    Comment: I am a [fill in the blank] of Westmoreland County 
Community Foodbank (Pa). Right now, many families in our community are 
struggling. With increased demand for emergency food assistance, high 
food and gas prices, and declines in TEFAP commodities--a major source 
of the food we distribute--our food bank is having difficulty meeting 
the needs of our community. We need a strong farm bill to make sure 
that struggling families can put food on the table. I ask that you pass 
a farm bill that protects and strengthens programs like SNAP, TEFAP, 
and CSFP. Our community cannot afford cuts to these programs.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Stephanie          (Supporter)        Crystal Byerly    (Supporter)
 Anderson
Joe Canada         (Volunteer)        Joseph Canada     (Supporter)
Julie Cawoski      (Supporter)        Rick Claypool     (Supporter)
Richard Greco      (Supporter)        Shirley Hoke      (Supporter)
Valerie LaBella    (Supporter)        Amber Luther      (Supporter)
Sara Perman        (Supporter)        Eve Roha          (Supporter)
Katherine Sam      (Supporter)        Taska Smola       (Supporter)
Texie Waddell      (Employee)         Lynda Warren      (Supporter)
------------------------------------------------------------------------

                         willing partners, inc.
    Comment: I am the [fill in the blank] in Galax. We operate a thrift 
store and a food bank for residents of Carroll and Grayson Counties and 
the City of Galax. With traditional food streams declining, we continue 
to find it difficult to meet the needs of our community, despite the 
publicized improvement of the economy. We need a strong farm bill to 
make sure that we can put food on the table for those that are still 
struggling. I ask that you pass a farm bill that protects and 
strengthens programs like TEFAP, SNAP, and CSFP. These programs are a 
lifeline to the southwest Virginia people struggling with hunger in 
your district, and I urge you to make them a priority in the next farm 
bill.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Ted Bartlett       President          John Cooley       Technical
                                                         Assistant
Kathy Cooley       Office Manager     Dorothy Crouse    Cashier
Judy Hackler       Sales              Doris Hamm        Cashier
Jacky Hamm         Service &          Carol J. Medley   Vice President
                    Delivery Worker
Weldon Utt         Service &          Mark Vaughan      Delivery &
                    Delivery Worker                      Service Worker
------------------------------------------------------------------------

                             winston-salem
    Name: Amanda Schroeder.
    Comment: In North Carolina, 1 in 6 citizens do not know where their 
next meal is coming. Programs like SNAP, TEFAP, and CSFP play an 
important role in keeping our Nation strong and healthy. Every day I 
see families, children, and seniors struggling to put food on their 
table. I urge you to pass a strong farm bill to protect SNAP, TEFAP, 
and CSFP Programs so the citizens in our well-developed country will 
not go hungry.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
